<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 112TH CONGRESS</title>
<body><pre>[Senate Hearing 112-419]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-419

 
NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             112TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

MICHAEL G. VICKERS; DR. JO ANN ROONEY; GEN MARTIN E. DEMPSEY, USA; HON. 
 LEON E. PANETTA; GEN JAMES D. THURMAN, USA; VADM WILLIAM H. McRAVEN, 
 USN; LTGEN JOHN R. ALLEN, USMC; MADELYN R. CREEDON; ALAN F. ESTEVEZ; 
  ADM JAMES A. WINNEFELD, JR., USN; GEN RAYMOND T. ODIERNO, USA; GEN. 
 WILLIAM M. FRASER III, USAF; GEN MARTIN E. DEMPSEY, USA; ADM JONATHAN 
   W. GREENERT, USN; LTG CHARLES H. JACOBY, JR., USA; HON. ASHTON B. 
CARTER; MICHAEL A. SHEEHAN; MARK W. LIPPERT; BRAD R. CARSON; AND KEVIN 
                               A. OHLSON

                               ----------                              

 FEBRUARY 15; MARCH 3; JUNE 9, 28; JULY 19, 21, 26, 28; SEPTEMBER 13; 
                           NOVEMBER 17, 2011

                               ----------                              

         Printed for the use of the Committee on Armed Services



NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             112TH CONGRESS





                                                        S. Hrg. 112-419

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             112TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

MICHAEL G. VICKERS; DR. JO ANN ROONEY; GEN MARTIN E. DEMPSEY, USA; HON. 
 LEON E. PANETTA; GEN JAMES D. THURMAN, USA; VADM WILLIAM H. McRAVEN, 
 USN; LTGEN JOHN R. ALLEN, USMC; MADELYN R. CREEDON; ALAN F. ESTEVEZ; 
  ADM JAMES A. WINNEFELD, JR., USN; GEN RAYMOND T. ODIERNO, USA; GEN. 
 WILLIAM M. FRASER III, USAF; GEN MARTIN E. DEMPSEY, USA; ADM JONATHAN 
   W. GREENERT, USN; LTG CHARLES H. JACOBY, JR., USA; HON. ASHTON B. 
CARTER; MICHAEL A. SHEEHAN; MARK W. LIPPERT; BRAD R. CARSON; AND KEVIN 
                               A. OHLSON

                               __________

 FEBRUARY 15; MARCH 3; JUNE 9, 28; JULY 19, 21, 26, 28; SEPTEMBER 13; 
                           NOVEMBER 17, 2011

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
74-537                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>  

  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                           february 15, 2011

Nominations of Hon. Michael G. Vickers to be Under Secretary of 
  Defense for Intelligence; and Dr. Jo Ann Rooney to be Principal 
  Deputy Under Secretary of Defense for Personnel and Readiness..     1

Statements of:

Hon. Michael G. Vickers, Nominated to be Under Secretary of 
  Defense for Intelligence.......................................     4
Rooney, Ph.D., Jo Ann, Nominated to be Principal Deputy Under 
  Secretary of Defense for Personnel and Readiness...............     6

                             march 3, 2011

Nomination of GEN Martin E. Dempsey, USA, for Reappointment to 
  the Grade of General and to be Chief of Staff, U.S. Army.......    93

Statements of:

Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....    98
Dempsey, GEN Martin E., USA, for Reappointment to the Grade of 
  General and to be Chief of Staff, U.S. Army....................   100

                              june 9, 2011

Nomination of Hon. Leon E. Panetta to be Secretary of Defense....   181

Statements of:

Feinstein, Hon. Dianne, U.S. Senator from the State of California   187
Boxer, Hon. Barbara, U.S. Senator from the State of California...   188
Panetta, Hon. Leon E., Nominated to be Secretary of Defense......   190

                             june 28, 2011

Nominations of GEN James D. Thurman, USA, for Reappointment to 
  the Grade of General and to be Commander, United Nations 
  Command/Combined Forces Command/U.S. Forces-Korea; VADM William 
  H. McRaven, USN, to be Admiral and Commander, U.S. Special 
  Operations Command; and LtGen John R. Allen, USMC, to be 
  General and Commander, International Security Assistance Force/
  Commander, U.S. Forces-Afghanistan.............................   353

Statement of:

Thurman, GEN James D., USA, for Reappointment to the Grade of 
  General and to be Commander, United Nations Command/Combined 
  Forces Command/U.S. Forces Korea...............................   358
McRaven, VADM William H., USN, Nominated to be Admiral and 
  Commander, U.S. Special Operations Command.....................   359
Allen, LtGen John R., USMC, Nominated to be General and 
  Commander, International Security Assistance Force/Commander, 
  U.S. Forces-Afghanistan........................................   360

                                  iii
                             july 19, 2011

Nominations of Madelyn R. Creedon to be Assistant Secretary of 
  Defense for Global Strategic Affairs and Alan F. Estevez to be 
  Assistant Secretary of Defense for Logistics and Materiel 
  Readiness......................................................   505

Statement of:

Lugar, Hon. Richard G., U.S. Senator from the State of Indiana...   508
Bingaman, Hon. Jeff, U.S. Senator from the State of New Mexico...   513
Creedon, Madelyn R., Nominated to be Assistant Secretary of 
  Defense for Global Strategic Affairs...........................   513
Estevez, Alan F., Nominated to be Assistant Secretary of Defense 
  for Logistics and Materiel Readiness...........................   515

                             july 21, 2011

Nominations of ADM James A. Winnefeld, Jr., USN, for 
  Reappointment to the Grade of Admiral and to be Vice Chairman 
  of the Joint Chiefs of Staff; GEN Raymond T. Odierno, USA, for 
  Reappointment to the Grade of General and to be Chief of Staff, 
  U.S. Army; and Gen. William M. Fraser III, USAF, for 
  Reappointment to the Grade of General and to be Commander, U.S. 
  Transportation Command.........................................   575

Statements of:

Winnefeld, ADM James A., Jr., USN, for Reappointment to the Grade 
  of Admiral and to be Vice Chairman of the Joint Chiefs of Staff   581
Odierno, GEN Raymond T., USA, for Reappointment to the Grade of 
  General and to be Chief of Staff, U.S. Army....................   582
Fraser, Gen. William M., III, USAF, for Reappointment to the 
  Grade of General and to be Commander, U.S. Transportation 
  Command........................................................   584
Annex A..........................................................   764

                             july 26, 2011

Nomination of GEN Martin E. Dempsey, USA, for Reappointment to 
  the Grade of General and to be Chairman of the Joint Chiefs of 
  Staff..........................................................   783

Statements of:

Dempsey, GEN Martin E., USA, for Reappointment to the Grade of 
  General and to be Chairman of the Joint Chiefs of Staff........   788

                             july 28, 2011

Nominations of ADM Jonathan W. Greenert, USN, for Reappointment 
  to the Grade of Admiral and to be Chief of Naval Operations; 
  and LTG Charles H. Jacoby, Jr., USA, to be General and to be 
  Commander, U.S. Northern Command/Commander, North American 
  Aerospace Defense Command......................................   909

Statements of:

Greenert, ADM Jonathan W., USN, for Reappointment to the Grade of 
  Admiral and to be Chief of Naval Operations....................   913
Jacoby, LTG Charles H., Jr., USA, Nominated to be General and to 
  be Commander, U.S. Northern Command/Commander, North American 
  Aerospace Defense Command......................................   915

                           september 13, 2011

Nomination of Hon. Ashton B. Carter to be Deputy Secretary of 
  Defense........................................................  1007

Statements of:

Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................  1008
Carter, Hon. Ashton, Ph.D., Nominated to be Deputy Secretary of 
  Defense........................................................  1013

                           november 17, 2011

Nominations of Michael A. Sheehan to be Assistant Secretary of 
  Defense for Special Operations and Low Intensity Conflict; Mark 
  W. Lippert to be Assistant Secretary of Defense for Asian and 
  Pacific Security Affairs; Brad R. Carson to be General Counsel 
  of the Department of the Army; and Kevin A. Ohlson to be a 
  Judge of the U.S. Court of Appeals for the Armed Forces........  1173

Statements of:

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...  1181
Leahy, Hon. Patrick, U.S. Senator from the State of Vermont......  1182
Sheehan, Michael A., Nominated to be Assistant Secretary of 
  Defense for Special Operations and Low Intensity Conflict......  1184
Lippert, Mark W., Nominated to be Assistant Secretary of Defense 
  for Asian and Pacific Security Affairs.........................  1185
Carson, Brad R., Nominated to be General Counsel of the 
  Department of the Army.........................................  1186
Ohlson, Kevin A., Nominated to be a Judge of the U.S. Court of 
  Appeals for the Armed Forces...................................  1186

APPENDIX.........................................................  1321


NOMINATIONS OF HON. MICHAEL G. VICKERS TO BE UNDER SECRETARY OF DEFENSE 
 FOR INTELLIGENCE; AND DR. JO ANN ROONEY TO BE PRINCIPAL DEPUTY UNDER 
            SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Webb, 
Udall, Hagan, Manchin, Blumenthal, McCain, Brown, and Ayotte.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; Creighton Greene, professional 
staff member; Jessica L. Kingston, research assistant; Michael 
J. Kuiken, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; Jason W. Maroney, 
counsel; Thomas K. McConnell, professional staff member; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; and John H. Quirk V, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; John 
W. Heath, Jr., minority investigative counsel; Daniel A. 
Lerner, professional staff member; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Hannah I. 
Lloyd.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Gordon Peterson, assistant to 
Senator Webb; Jennifer Barrett, assistant to Senator Udall; 
Roger Pena, assistant to Senator Hagan; Lindsay Kavanaugh, 
assistant to Senator Begich; Joanne McLaughlin, assistant to 
Senator Manchin; Chad Kreikemeier, assistant to Senator 
Shaheen; Jordan Baugh and Elana Broitman, assistants to Senator 
Gillibrand; Lenwood Landrum and Sandra Luff, assistants to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; Charles Prosch, assistant to Senator Brown; and Brad 
Bowman, assistant to Senator Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of two senior officials 
to serve in important positions within the Department of 
Defense (DOD). Dr. Michael Vickers has been nominated to be the 
Under Secretary of Defense for Intelligence. He is currently 
serving in that position on an acting basis while continuing 
his duties as the Assistant Secretary of Defense for Special 
Operations, Low Intensity Conflict, and Interdependent 
Capabilities (SOLIC&IC). Dr. Vickers has served ably in that 
position, guiding and overseeing major elements of our 
operations against terrorists and insurgents across the globe.
    Dr. Vickers has had a long and distinguished career in 
Government service, much of which is relevant to the position 
for which he has been nominated by the President.
    In his present position as Assistant Secretary of Defense-
SOLIC, he has been deeply involved in intelligence matters 
across the Government as a policymaker, as a consumer of 
intelligence, and as a producer of intelligence. He served 
previously as a Central Intelligence Agency (CIA) operations 
officer in multiple divisions, spanning the Near East, South 
Asia, and Latin America, and including involvement in covert 
actions. He also served as an Army Special Forces soldier and 
officer.
    Congress created the position of Under Secretary of Defense 
for Intelligence (USD(I)) in 2002 in recognition of the growing 
importance of intelligence to our military forces, especially 
in conducting operations after the events of September 11. The 
Under Secretary of Defense for Intelligence is the principal 
staff assistant and adviser to the Secretary and Deputy 
Secretary of Defense regarding intelligence, 
counterintelligence, security, and other sensitive matters. In 
this capacity, the USD(I) exercises the Secretary's authority 
over the intelligence components of DOD and is responsible for 
intelligence planning, programming, budgeting, policy 
formulation, and oversight.
    The USD(I) is also responsible for ensuring that DOD 
intelligence components are responsive to the direction and 
requirements of the Director of National Intelligence (DNI). 
Indeed, by formal agreement between the DNI and the Secretary 
of Defense, the USD(I) is dual-hatted as the Director of 
Defense Intelligence on the DNI's staff.
    Dr. Jo Ann Rooney has been nominated to be the Principal 
Deputy Under Secretary of Defense for Personnel and Readiness, 
the Department's number two position for military and civilian 
personnel issues, including recruitment, retention, pay and 
benefits, health care, readiness, and the quality of life of 
the members of our Armed Forces and their families. Dr. Rooney 
comes to us from academia, where she most recently served as 
the President of Mount Ida College and has served as an 
instructor at various colleges since 1994.
    Dr. Rooney also serves on the board of trustees for the 
Jewish Hospital and St. Mary's Health Care, a nonprofit health 
care system in Louisville, KY, experience that could serve her 
well in her new position should she be confirmed.
    The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness position is vitally important as the 
Department and Congress continue to wrestle with many 
challenges, including vastly growing personnel and health care 
budgets and the proper size of the force. The Department is 
actively planning a reduction in its ground forces, depending 
on conditions in Iraq and Afghanistan, and the 2012 budget 
request includes modest reductions in the Army and Navy, while 
the Department plans greater reductions in future years.
    In evaluating the size of the force, we must be mindful of 
the stress on the force, including inadequate dwell time for 
many soldiers and a deeply concerning suicide rate.
    Finally, the Department is continuing its deliberate 
progress in implementing the repeal of Don't Ask, Don't Tell.
    We welcome both our nominees. We thank them. We thank their 
families for their distinguished public and private service and 
willingness to serve our Nation in these important positions. 
When we call upon them for their opening statements, we will 
ask them to introduce the family members and their friends who 
are with them as they give those statements.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Senator Levin. I join you in 
welcoming our nominees and their families and friends who are 
here today, especially our two youngest there [pointing to the 
audience], who have been working on paperwork in preparation 
for this hearing. We thank you for that. [Laughter.]
    Secretary Vickers has had a distinguished and storied 
record of service to this country. He served as an Army Special 
Forces soldier, as a CIA case officer, and since August 2007 as 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict and Interdependent Capabilities.
    Dr. Vickers, you must be prepared to streamline the size 
and cost of the organizations which you'll oversee. Secretary 
Gates has announced his initiative to cut costs, eliminate 
waste and redundancies, and focus defense dollars on the most 
vital programs. With the rollout of the fiscal year 2012 budget 
yesterday, we will want to know what parts of the defense 
intelligence enterprise will be affected.
    In the face of an unacceptably high and increasing deficit, 
we must examine all aspects of defense spending. I hope we can 
learn from you how you would apply these efficiencies for cost 
savings for other vital defense priorities. For example, which 
intelligence functions are redundant and can be eliminated; 
which intelligence organizations that are bloated can be cut; 
are there senior civilian positions that could be transferred 
or eliminated; which contracts for services could be 
terminated; and which major acquisition programs should be 
restructured or eliminated to save money?
    My questions, however, should not be interpreted as 
reflecting a lack of concern or support for our ongoing 
operations in Iraq and Afghanistan. Obviously, failure is not 
an option in achieving our goals in both Operation New Dawn and 
Operation Enduring Freedom, and robust intelligence-gathering 
and analysis are critical to our success.
    The list of imperatives for the defense intelligence 
enterprise is lengthy. We must be able to continue to locate 
and track America's most relentless enemies on the battlefield, 
to include former Guantanamo detainees who have made their way 
back into the fight. We must safeguard our Nation's vital 
secrets to prevent another Wikileaks episode and any further 
neutralization of our lawful intelligence collection methods. 
Through sound acquisition practices, we have to ensure our 
troops and our Nation have the overhead surveillance required 
for national security and mission accomplishments.
    Dr. Rooney, you've had a distinguished career in law, 
education, and health administration. I expect you'll be called 
on very quickly to assist Secretary Gates and Under Secretary 
of Defense Stanley in making progress in several key areas that 
demand attention. Foremost among these is identifying ways to 
improve the well-being and quality of life of servicemembers 
and their families. After 9 years of combat operations in Iraq 
and Afghanistan, our forces, particularly the ground forces, 
special operators, and the combat support personnel who 
mobilize and sustain them through multiple deployments, are 
stressed.
    While recruiting is strong and retention levels for 
experienced noncommissioned officers and officers remain 
historically high, the Department must continue to ensure that 
the resources, policies, and programs are in place to guarantee 
that deploying troops are trained, ready, and focused. For our 
wounded or injured, there must continue to be world-class care 
on the battlefield, and when they return home that the 
procedures for helping them and their families transition 
seamlessly to the next stages of their military service or 
civilian life work as rapidly and fairly as possible.
    I look forward to hearing your testimony and I wish to 
congratulate you on your nominations and I look forward to 
confirming you as quickly as possible.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Let me now call on you for your opening statement, 
Secretary Vickers.

  STATEMENT OF HON. MICHAEL G. VICKERS, NOMINATED TO BE UNDER 
             SECRETARY OF DEFENSE FOR INTELLIGENCE

    Dr. Vickers. Chairman Levin, Senator McCain, distinguished 
members of the committee: It is an honor to appear before you 
here today. Thank you for your consideration of my nomination. 
I am profoundly grateful for the confidence President Obama has 
shown in me by nominating me for the position of Under 
Secretary of Defense for Intelligence and in designating me as 
the Acting USD(I) on 28 January. In the brief period I have 
been Acting USD(I), I have gained a further appreciation of the 
immense responsibilities of this office.
    I am also deeply grateful to Secretary Gates for his 
support. I had the great privilege of serving with Secretary 
Gates in the CIA during the 1980s and he has been the model for 
me ever since of what a professional intelligence officer 
should aspire to.
    The USD(I) is dual-hatted as the DNI's Director of Defense 
Intelligence. I have had the great honor of serving with 
Director Clapper for the past 3\1/2\ years and I am grateful 
for his support for my nomination.
    I would also like to thank my family for their love and 
support. It is a great honor, Mr. Chairman, to introduce them 
to the committee today. With me here today are my wife, Melana, 
and our daughters Alexandra, Sophia, Oksana, and Kalyna. I 
would be a very poor dad if I did not also introduce in 
absentia our fifth daughter, Natasha, who is busily studying 
for her midterms at Ohio State and thus could not be with us 
today.
    Chairman Levin. Which is the youngest of your daughters who 
are here today, by the way?
    Dr. Vickers. Kalyna is our kindergartener, who is 6 years 
old on February 8th.
    Chairman Levin. I was trying to win her vote here by asking 
which is the youngest. Thank you. [Laughter.]
    Dr. Vickers. I'd like to also add that Oksana has the same 
birthday as President Obama. [Laughter.]
    Also with me here today are my mother-in-law, Oksana 
Hepburn, my brother-in-law, Roman Gila, and his son and my 
nephew Muletti Gila, and numerous friends and colleagues from 
the Pentagon.
    It has been a great privilege and honor for the past 3\1/2\ 
years to serve as Assistant Secretary of Defense for SOLIC&IC 
under both President Bush and President Obama. Our special 
operators do much to keep us safe and I am immensely proud of 
them.
    We face many challenges as a Nation, from the war with al 
Qaeda in Afghanistan to the pursuit of nuclear weapons by rogue 
states, the development of asymmetric capabilities by rising 
and resurgent powers, and the continued effects of the global 
financial crisis. I am confident we'll be more than equal to 
these challenges, as Americans before us were to the challenges 
that confronted them.
    Our intelligence capabilities constitute an increasingly 
critical source of advantage for our Nation. Recent events in 
the Middle East remind us of the importance of intelligence, 
but also of the unpredictable and rapid turns developments can 
take. Our warriors in the field and our policymakers here at 
home are better served by U.S. intelligence today than at any 
time since I began my service nearly 4 decades ago. We owe them 
the best intelligence we can provide. If confirmed as USD(I), I 
will do my best to ensure that this continues to be the case.
    As a CIA officer in the 1980s, I learned first-hand about 
the importance of congressional oversight of intelligence. Even 
more important, I learned what an indispensable partner 
Congress can be.
    I look forward to your questions, Mr. Chairman.
    Chairman Levin. Secretary Vickers, we thank you very much 
for that opening statement.
    Dr. Rooney.

 STATEMENT OF JO ANN ROONEY, Ph.D., NOMINATED TO BE PRINCIPAL 
 DEPUTY UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Dr. Rooney. Good morning, Chairman Levin, Senator McCain, 
and members of the Senate Armed Services Committee. Thank you 
for the opportunity to appear before you today. I am grateful 
for the confidence that President Obama has shown in me by 
nominating me for the position of Principal Deputy Under 
Secretary of Defense for Personnel and Readiness. I also want 
to thank Secretary Gates for his support of my nomination. If 
confirmed, I will be honored to serve.
    I want to thank my family and extended family for their 
support and it's my pleasure to introduce them now. My mom, 
Patricia Rooney, is with me today and I want to offer her my 
heartfelt and special thanks. It is because of her support and 
that of my late dad, John, that I'm here with you today. My 
dad, an Army veteran, and my mom, a retired public school 
elementary teacher, taught me that anything is possible, but 
that I must embrace opportunities to use my experience and 
talent to help others and leave an organization and people 
better for my efforts.
    I'm also fortunate to have several other people very 
special in my life here today. My dearest friend of over 30 
years and true sister of the heart, Linda Pizzorni, is here. 
Her daughter Alessia, a high school senior, is also here with 
us today. She and her sister Veronica, who is home because she 
has to be in school and she's with her dad, are truly my nieces 
in many ways.
    Father Al Faretra, who is like my big brother, is 
representing the rest of the extended family in the Boston 
area. Prior to becoming a priest, Al served in the Navy and 
spent time aboard the USS Forrestal.
    Finally, Father Jim Rafferty, a very dear friend and 
someone who I've had the pleasure of logging many nautical 
miles sailing the waters throughout New England, is here 
lending support.
    I have not had the opportunity to serve our Nation in 
uniform, as did my dad, my uncles, my godfather, and many 
members of my extended family. They served in peacetime and in 
wartime, including World War II, Korea, and Vietnam. But like 
many Americans, I'm aware of the myriad of challenges members 
of our military, the civilian force, and their families face in 
supporting their service to our country. It is my desire to 
serve our country and, if confirmed, I pledge to bring all of 
my experience, knowledge, energy, and passion to the role.
    The responsibilities and functions of the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness are vast 
and challenging. They encompass advising and assisting the 
Under Secretary of Defense for Personnel and Readiness and 
advising the Secretary and Deputy Secretary of Defense in 
matters relating to manpower, force management, planning, 
program integration, readiness, Reserve component affairs, 
health affairs, training, civilian and military personnel 
requirements and management, commissary and exchange, morale, 
welfare, and recreation, quality of life matters, spousal and 
family support, and dependent education.
    By nature, as the needs of our military and civilian 
members of DOD and their families change the responsibilities 
of the role must also evolve.
    My background in law, finance, business, strategy, 
organizational change, education, and health care provide me 
with a broad range of experiences and perspectives to bring to 
this role, if confirmed.
    All of us face daunting challenges, not only within DOD, 
but throughout the country, in areas of health care, cost 
containment, efficient use of resources, assessments, and 
accountability. Yet the goal is to balance these issues in a 
way to ensure we have the necessary resources so that the men 
and women in the Department are able to meet our Nation's 
requirements for national security.
    I understand the importance of working with this committee, 
the entire Congress, other governmental departments and 
agencies, and civilian and educational institutions in order to 
accomplish this goal. I understand the longstanding and 
daunting challenges associated with these and other aspects of 
DOD personnel and readiness, enabling the effective 
recruitment, retention, and training of the people we need. I 
will take all these responsibilities seriously and, if 
confirmed, I pledge my best efforts to work with this committee 
and many others to meet these challenges.
    In closing, I would like to again thank President Obama and 
Secretary Gates for selecting me as the nominee for this 
position. If the Senate confirms me, I will make every effort 
to live up to the confidence they and all of you have placed in 
me.
    Thank you. I look forward to your questions.
    Chairman Levin. Thank you very much, Dr. Rooney.
    We give a warm welcome to your families and friends, who 
are such an important part of who you are and your being here 
today.
    We have standard questions which we ask our nominees, which 
we'll ask each of you now. You can answer together. Have you 
adhered to applicable laws and regulations governing conflicts 
of interest?
    Dr. Rooney. Yes.
    Dr. Vickers. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Vickers. No.
    Dr. Rooney. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established or requested communications, including 
questions for the record in hearings?
    Dr. Vickers. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Vickers. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Rooney. Yes.
    Dr. Vickers. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Vickers. Yes.
    Dr. Rooney. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Dr. Rooney. Yes.
    Dr. Vickers. Yes.
    Chairman Levin. Thank you.
    I think we'll try a 7-minute round of questions.
    Dr. Vickers, we've been making efforts over the years, this 
committee, to expand the budgets, the production rate, the 
planned number of orbits, for major unmanned aerial vehicles 
that have been so critical to our forces in Afghanistan, Iraq, 
and elsewhere, including the Predator and the Reaper. Our 
current objective is 65 orbits for these aircraft. The budget 
for fiscal year 2012 that we just received funds these aircraft 
at the maximum current production rate.
    However, the fact is that our troops need more and are 
asking for more of these assets right now. They're living with 
significant unfulfilled requirements every day. Now, we were 
recently told that the limiting factor for accelerating the 
expansion of that force is operators and linguists rather than 
the production capacity at factories. My question is, why can't 
the Services accelerate the recruitment and the training of 
operators and linguists?
    Dr. Vickers. Mr. Chairman, our Intelligence, Surveillance, 
and Reconnaissance (ISR) task force, under Secretary Gates' 
direction, has been working very hard since 2008 to provide the 
intelligence capabilities our warriors in the field require. 
Nevertheless, demand has continually outstripped supply, which 
is one reason during the recent Quadrennial Defense Review we 
raised the requirement for Predator and Reaper combat air 
patrols or for orbits from 50 to 65, and it's not clear at this 
point that 65, which we'll reach in 2013, will still meet our 
demand.
    To supplement that, we've been adding manned aircraft of 
various kinds, variations of C-12 aircraft, Project Liberty by 
the Air Force, and medium altitude reconnaissance and 
surveillance systems by the ground forces, to address this 
shortfall.
    As you noted, buying the aircraft is not enough. We also 
have to have operators, linguists, bandwidth, across the 
intelligence cycle. The Air Force in particular has been 
working very hard at converting operators to these functions. 
In fact, there are now more pilots involved in unmanned 
aircraft in the Air Force than there are flying manned 
aircraft. But we still have work to do.
    Chairman Levin. I recently wrote Secretary Gates about the 
current requirements for ISR support in the Horn of Africa and 
about the Department's current acquisition plans for additional 
ISR assets to support the geographic combatant commands. Now, 
I've not received a reply to this letter, but I would ask, 
since less than 10 percent of the requirements are being filled 
right now, that you pay some very urgent attention to that and 
that you get a response to that as quickly as possible. Would 
you do that?
    Dr. Vickers. Yes, sir, I will.
    Chairman Levin. Dr. Vickers, in your current position as 
Assistant Secretary of Defense-SOLIC, I think you understand 
very well how our Special Forces have discovered how to tightly 
integrate the different sensors to achieve unprecedented 
capabilities to identify high-value enemy personnel, to locate 
them, to track them, to identify their broader networks, and 
attack them.
    Signals intelligence, sensors are used to cue airborne 
video cameras where to look. Radars that can detect moving 
vehicles or even people walking are used as tipoffs to begin 
focused collection, and so on.
    Now, it's proven a lot more difficult for the regular 
conventional forces of the Army, Air Force, and Marine Corps to 
achieve the degree of ISR system integration necessary to 
replicate U.S. Special Operations Command's success because the 
ISR assets are not under unified control. It's my understanding 
that the ISR task force and the Joint Staff are focused now on 
this problem. Do you have any ideas as to how the 
organizational obstacles can be removed in order to truly 
integrate our ISR assets operationally?
    Dr. Vickers. Yes, sir, I do. As you noted, the technique 
that our Special Operations Forces have pioneered, which we 
call ``find, fix, finish, exploit, and analyze''--to have a 
recurring intelligence cycle to lead to successive operations 
to take down an enemy network is something that has been 
progressively transmitted from our national Special Operations 
Forces to our theater forces and progressively to our general 
purpose or conventional forces.
    General Petraeus is working this problem with his J-2 very 
hard in Afghanistan and we're seeing results in that area.
    I would add as well that we're providing additional 
capabilities in Afghanistan that we only had in very limited 
numbers in Iraq, for example, very persistent aerostats over 
all our conventional force positions to provide the kind of 
persistent surveillance that our forces need, particularly 
against improvised explosive devices.
    There is still some work that needs to be done. If you 
compare the different organizations, national, Special 
Operations Forces, theater, and conventional forces, in their 
ability to rapidly exploit this kind of information, but the 
gap is narrowing.
    When we used to describe a goal in the Department of trying 
to make conventional forces more special operations-like, we 
used to mean operating in small groups like special operators. 
Now we mean the ability to exploit intelligence across the 
cycle in the manner you described.
    Chairman Levin. Thank you.
    Dr. Vickers, General Petraeus in a recent interview 
discussed what he called the growing friction between local 
Taliban fighters living in Afghanistan and the Afghan Taliban 
leadership who phone in orders that the local insurgents should 
continue to fight against Afghan and coalition forces through 
the winter, while the leadership remains safely in the 
sanctuaries in Quetta and elsewhere in Pakistan.
    According to General Petraeus, Taliban leadership is eager 
to keep up the fight through the winter because they know 
they've suffered losses over the last year. He also said that 
we're seeing a degree of discord among the Afghan Taliban 
leaders and between them and the lower level fighters, and a 
level of discord that we have not seen in the past. Do you 
agree with General Petraeus' assessment that there is friction 
and discord between local Taliban fighters in Afghanistan and 
the Taliban leadership in Pakistan as the leadership phones in 
those orders while they keep safely somewhere else, and is this 
level of friction something that we've not seen in the past?
    Dr. Vickers. Yes, sir, I do agree with General Petraeus' 
assessment. I'd be happy to provide more detail in a classified 
session, but let me say now that this discord as operational 
commanders from Afghanistan go back to sanctuary in Pakistan 
for the winter has increased over the past year, particularly 
as the effects of the surge of forces the President ordered in 
December 2009 really began to be felt at the end of this past 
2010 fighting season, from September to November.
    The situation that General Petraeus was describing, where 
the Taliban senior leadership wants to continue the fight 
during the winter months--a lot of local commanders have been 
voting with their feet, essentially, and saying, ``I've had 
enough of this,'' to the effects of our increasingly effective 
operations, but also because of multiple competing interests 
within the insurgency. The insurgency is not a monolithic 
group. A lot of fighters fight for very different reasons, 
including economic ones. So there's naturally a lot of 
frictions induced there. But the leadership-warrior divide is a 
big part of it.
    Chairman Levin. Thank you.
    Before I call on Senator McCain, let me just quickly 
mention that I hope we'll get a quorum here this morning, and 
when we do we will offer the committee budget to be approved.
    I'm going to turn the gavel now over to Senator Reed and 
call upon Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses. Secretary Vickers, we've 
recently heard some rather guardedly optimistic assessments of 
the situation in Afghanistan. Do you agree with those 
assessments?
    Dr. Vickers. Yes, sir, I do.
    Senator McCain. The main problems still being corruption 
and Pakistan?
    Dr. Vickers. The strategic problem, sir, as you identified, 
are the continued presence of a sanctuary in Pakistan and then 
the governance challenge.
    Senator McCain. On the issue of Wikileaks, what's your 
understanding of the status of investigations into the cause of 
Wikileaks?
    Dr. Vickers. Sir, the Office of the Under Secretary of 
Defense for Intelligence has mainly been focused on assessing 
the damage, which they've done a very good job on, and remedial 
measures with our chief information officer in the lead. My 
understanding of the investigation is that it is ongoing, but 
that's about all I can say at this time.
    Senator McCain. I've been interested to hear some in the 
media and others say that Wikileaks was a good thing, and that 
it didn't damage our national security or our ability to carry 
out our missions.
    Yet isn't it true that in Wikileaks some individuals who 
were cooperating with us were identified?
    Dr. Vickers. Yes, sir, that is true.
    Senator McCain. That puts their lives in danger?
    Dr. Vickers. Yes, sir, it does.
    Senator McCain. I'm curious about your assessment of the 
damage that Wikileaks did to your abilities, and particularly 
in the area of getting people to cooperate with us in the vital 
aspect of human intelligence.
    Dr. Vickers. Sir, I think it's had implications from the 
foreign policy level about governments wanting to ensure that 
their confidential relationships with the United States are 
protected, down to operational issues, as you mentioned, of 
assets that would cooperate with us. Fortunately, we are able 
to attract the intelligence assets that we require to serve our 
policymakers and warriors, but the damage should not be 
understated and the Department has learned many lessons about 
how to prevent this from ever happening again.
    Senator McCain. But the damage especially has been on the 
operational level. If we disclose an ambassador's candid 
assessment of a foreign leader, that's one thing. But to have 
operations and individuals disclosed in my view--and more 
importantly, what is your view--this can be very damaging, and 
some local individual may think twice before agreeing to 
cooperate with us if that person's name is going to be 
publicized.
    Dr. Vickers. Yes, sir, that is exactly correct. As a former 
CIA operations officer, your first responsibility is to protect 
the security of those who would cooperate with the United 
States through tradecraft and proper information security, and 
they depend on us to do that.
    Senator McCain. Do you have a good sense of how former 
detainees are making their way back into the battlefield? I saw 
a news report this morning that another one was apparently 
killed, just reported today. Do you have a sense on how they're 
making their way back to the battlefield?
    Dr. Vickers. Sir, approximately 20 to 25 percent have made 
their way back in one form or another.
    Senator McCain. That we know of.
    Dr. Vickers. That we know of. Some of those have 
subsequently been killed or recaptured. Others are out there 
fighting against us as well. The routes that they take depend 
on the circumstances of their release. But needless to say, 
it's been in multiple countries and multiple routes, and I'd be 
happy to discuss that in more detail at a classified session.
    Senator McCain. You would agree it is a problem?
    Dr. Vickers. Yes, sir, it is.
    Senator McCain. Because now it seems to be a status symbol 
for those that return to the battlefield with their 
compatriots.
    Dr. Vickers. Yes, sir. That's a very good point, that some 
mid-level operatives have been elevated to leadership positions 
by this conferral of status.
    Senator McCain. Dr. Rooney, we intend to confirm you, and 
obviously I believe you're well-qualified, but you don't have a 
depth of experience with the men and women in the military. If 
I could suggest--and suggestions are a very cheap commodity 
around here--that you spend some time traveling around, not 
only to the bases here in the continental United States, but 
also our overseas bases and areas, if you can, even forward 
deployed, so to give you a better depth and understanding of 
the challenges, particularly of the repeated deployments that 
our men and women in the military have been making and the 
strain and stress that puts on their families, I hope you will 
do that as a very high priority.
    Dr. Rooney. Yes, sir. If confirmed, that would be an 
immediate priority.
    Senator McCain. Last year, in a contentious markup, this 
committee voted 15 to 12 to allow servicemembers, their 
dependents, and retirees to obtain privately paid abortions at 
military hospitals. Do you support the administration's 
position that abortions should be provided in military 
hospitals?
    Dr. Rooney. My position, sir, is to support the law and 
enforce the law. But I also understand that the abortions are 
voluntary, they would be outpatient services, and it's not 
mandatory that any physicians there actually perform the 
abortions, but it's making the health care available. I would 
comply to the law.
    Senator McCain. Thank you.
    Senator Reed [presiding]. Thank you, Senator McCain.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join both the chairman and Senator McCain in 
thanking you, Secretary Vickers, for your service in the past, 
very distinguished service, and thank you, Dr. Rooney, for 
undertaking this very challenging, but critically important, 
assignment.
    Secretary Vickers, I'd like to ask about one of the answers 
that you gave in the advance policy questions about a very 
important area that I know has concerned the committee in the 
past regarding the sharing of information, raw intelligence 
data, where you observed in the past there have been cultural 
barriers to the full access to this information.
    I wonder if you could please describe for the committee 
what steps you would take to increase the sharing and 
availability of this data to special operations personnel and 
others in the field who need it?
    Dr. Vickers. Yes, sir. As I indicated in my answers to the 
committee's advance policy questions, the Intelligence 
Community was raised throughout the Cold War on the principle 
of need-to-know, and increasingly in the war with al Qaeda and 
wars in Afghanistan and Iraq, the responsibility to share is 
imperative for our forces on the battlefield. That means not 
only sharing with our own forces, but in Afghanistan we have 49 
nations fighting alongside us and sharing with them as well.
    This requires technical solutions to the problem. Until 
recently in Afghanistan we had 26 different networks, that 
we're standardizing to facilitate the movement of information 
into a common network. But it also requires changes in the way 
we operate and what information can be provided at what level. 
Particularly, as Chairman Levin noted, some of the sensitive 
information we get in signals intelligence and others, that has 
typically been very compartmented, is critical on a time-
sensitive basis to operators, both to kill or capture their 
adversary, but also to protect from attack.
    We have been working that very hard. There is an inherent 
tension, however, between the responsibility to share and need-
to-know that we always have to weigh to protect sources and 
methods from unauthorized disclosure, while making sure we get 
timely information in the hands of our warfighters.
    Senator Blumenthal. Do you feel that the barriers, as has 
been observed before, are still primarily cultural, or do you 
think there are procedural barriers that need to be overcome?
    Dr. Vickers. I think there's a mix, sir. I think some of it 
is cultural legacy, but others, as I said, are technical 
challenges, or also, as Chairman Levin noted earlier, having 
the intelligence structures to rapidly process and move the 
information. Not all elements of the force are equally equipped 
in that area and it's something we're working to address.
    Senator Blumenthal. Going to another line of questioning, I 
wonder if you could give us a more precise view about the 
extent of the discord and perhaps the magnitude of the 
phenomenon of these perhaps dissatisfied enemy combatants 
voting with their feet, as you have put it?
    Dr. Vickers. Sir, you mean those going back into combat?
    Senator Blumenthal. Exactly.
    Dr. Vickers. There are different perspectives on this, sir. 
Some are inherently repeat offenders, in the way that some 
portion of those from the criminal justice system do the same, 
particularly if they're going back into an area where they're 
surrounded by those engaged in terrorism, and there are certain 
ungoverned areas that they've made their way back to in Yemen, 
in Pakistan, that are very conducive to this. I wouldn't want 
to ascribe a single motivation, but looking at a number of 
these cases over the past several years and the recidivism, 
some have chosen a life of terrorism and their associates have.
    In some cases it's a family business that we've seen, that 
a lot of relatives are all engaged in the same line of work. I 
think that creates a greater propensity for them to go back. 
It's hard to know a priori necessarily which ones will and 
won't.
    There are those that we have very clear indications that 
would and therefore they're not released. But there are others 
that are in that grey ground that we need to do more to fix.
    Senator Blumenthal. Are there specific steps being 
contemplated to do more in that area, as you suggested?
    Dr. Vickers. Yes, sir. We have a Department of Justice-led 
initiative, with interagency participation, to review release 
of detainees at the highest levels or to transfer them to 
another country, and then we have task forces in the field 
working with local governments to review cases in the zones of 
armed conflict as well.
    Senator Blumenthal. Dr. Rooney, you may have seen recent 
reports about the very unfortunate and tragic perils of perhaps 
overuse of combinations of pharmaceutical drugs in treating 
young men and women coming back and suffering from post-
traumatic stress and other psychological phenomena. Are you 
aware of these reports and do you have thoughts about what can 
be done to address this problem?
    Dr. Rooney. Yes, sir, I am aware of the reports and the 
issue of particularly psychotropic drugs, whether it's on the 
military side or the civilian side, absolutely shares some 
common factors. I think the lesson that we're all learning is 
that--and I'm not a medical doctor--the use of drugs and not 
understanding the interactions of the drugs actually at times 
exacerbates the problem. I think we're getting a lot more 
intelligent about that. We're starting to get a lot more 
research about where those drugs are effective and where 
they're not, and also understanding that at times it's critical 
to link--sometimes our service people are going outside to 
civilian providers and then also having service inside the 
military, and we're not necessarily connecting and 
understanding the drugs that have been prescribed by both.
    Because of that awareness, there is now much more emphasis 
on trying to destigmatize the treatment, so that we can have a 
coordinated basis of care. But it is an ongoing issue.
    Senator Blumenthal. Thank you very much. I thank you both 
for your answers and for your very distinguished service.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Blumenthal.
    Senator Ayotte.
    Senator Ayotte. Secretary Vickers, Dr. Rooney, I first of 
all want to commend both of you for your career histories. 
Secretary Vickers, thank you so much for your service to our 
country. You're both eminently qualified. I also want to 
commend your families and thank them for their support for both 
of you.
    Secretary Vickers, I wanted to ask you again; you had cited 
a statistic in response to Senator McCain that 20 to 25 percent 
of the Guantanamo detainees have been released and have 
returned to the conflict. Is that the correct number?
    Dr. Vickers. Yes, ma'am. In the case of Guantanamo it's 
closer to 25 percent. Of the approximately 600 that have been 
released, about 150, we either know that they've returned or we 
strongly suspect that they've returned. In the case of other 
detainees that have been released on the battlefield, the 
number is between 20 and 25.
    Senator Ayotte. How is that fact informing release 
decisions going forward?
    Dr. Vickers. It has a strong impact on it, in the sense 
that remaining cases are scrutinized not just for recidivism, 
but also the ability in the case of third countries to continue 
to detain them if they're transferred. A lot of detainees can't 
be transferred because there's no assurance that they'll be 
properly detained and not released.
    Part of the recidivism problem breaks down when they're 
transferred to another country and then they're quickly 
released. So part of it is, as I said, is looking at the 
transfer problem in itself.
    In zones of hostilities, it may be local politics in some 
cases. Someone with connections is getting someone released and 
then again there's a high probability that they'll be 
recidivists, but the political system has intervened in the 
past. We've learned from this experience and are trying to 
address it, but it's not a foolproof system.
    Senator Ayotte. Given the President's Executive order 
advocating for the closure of Guantanamo, if tomorrow we 
capture a high-value target in Pakistan or overseas, or perhaps 
someone you would deem a repeat offender, what are we doing 
with them?
    Dr. Vickers. The administration is in the final stages of 
establishing its detention policy. But there is a challenge 
with those picked up outside zones of hostilities. In zones of 
hostilities, in Afghanistan principally now, there are well-
established procedures and mechanisms to detain them for the 
period as required. If a terrorist were picked up in Somalia, 
for example--one example of a very ungoverned space--that has 
been a vexing challenge for both administrations, I would add, 
both the Bush administration and the Obama administration, 
there's not an obvious solution that presents itself.
    But the USD(I)'s responsibility in this is to work on the 
intelligence aspects and not the detainee policy. I would defer 
to my policy colleagues in the Under Secretary of Defense for 
Policy's Office of Detainee Affairs to address your question 
more fully.
    Senator Ayotte. Secretary Vickers, I fully appreciate that 
there are others that will have more direct impact on this. But 
given the breadth of experience that you have in this area and 
the vexing challenges that you've identified, what 
recommendations would you have to your colleagues in the 
administration on how we can best address this issue to make 
sure that if we capture a high-value target in one of these 
areas that we can make sure that we have the ability to 
interrogate that individual and also, if they present a 
continuing threat, that we can detain them?
    Dr. Vickers. On the interrogation side, the first step to 
extract intelligence, the administration has established a 
high-value interrogation group led by the Federal Bureau of 
Investigation, with participation from Defense and the CIA as 
well. That group has deployed several times and that mechanism 
should work well for interrogation and debriefing of detainees.
    Options range from transferring to another country, 
provided human rights assurances and access to the detainee and 
others can be met. But given the problem that many countries 
are either incapable or unwilling of taking some of these 
detainees, we require some mechanism to be able to detain them 
ourselves. That again, others in the administration are working 
that very hard.
    Senator Ayotte. When we transfer to another country, 
Secretary Vickers, aren't we in a position in which we don't 
have full control over the situation, even if we get assurances 
from the country? The level of control we have is much less 
than if we had them, for example, in a Guantanamo-type 
facility?
    Dr. Vickers. Before we transfer anyone, we want assurances 
that, in a number of areas, as I said, if they need to be 
detained the country in question is capable of detaining them; 
if there is intelligence value to the detainee, that we would 
have access to that detainee. But countries are sovereign and 
we do our best to ensure that these conditions are met; they're 
not always met 100 percent in some of these areas. Again, 
that's part of the challenge.
    Senator Ayotte. How can Congress help with this issue, 
because it's obviously of deep concern if we are in a position 
where we capture a high-value target or a repeat offender and 
that person still remains a danger, or we need to have them in 
a position where we can gather important information from them?
    Dr. Vickers. It is critical to have the option of capturing 
for laws of war, but also for intelligence value as well. 
Again, this is something that my colleagues in the inter-agency 
and within DOD are working, and I'm sure they will come to 
Congress for help on this.
    Senator Ayotte. Thank you very much. I appreciate your 
answers today. Thank you, Dr. Rooney.
    Senator Reed. Thank you very much, Senator.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I want to thank Secretary Vickers for your past service to 
our country; and, to Secretary Vickers and Dr. Rooney, thank 
you for your agreeing to be nominated to these positions and 
your willingness to serve. Also, kudos to the families and 
extended families. Thank you for being here and supporting 
these very well-qualified individuals.
    I did want to ask, Secretary Vickers, when confirmed you 
will be responsible for implementing Secretary Gates' 
efficiency initiative as it relates to defense intelligence. In 
particular, you will need to downsize and consolidate the 
intelligence workforce and ensure that we avoid duplication of 
work among the respective intelligence agencies. What is your 
plan to address and implement this plan while still ensuring 
the timely development of actionable intelligence for our 
warfighters?
    Dr. Vickers. During the efficiencies process, the principal 
focus of eliminating redundancies was to look at Service, 
meaning Army, Navy, Air Force, Marine Corps intelligence 
organizations and those of the combatant commands. So we have 
developed an organization called Joint Intelligence Operations 
Centers (JIOC), that every combatant command has, and they've 
all grown rather large, in the thousands of staff.
    We have developed a standardized model, after some 
experience now, that resulted in the major warfighting command, 
or Central Command, to have a large JIOC, as we describe it, 
and Pacific Command, which has a lot of challenges in its 
region, to also have a very large JIOC. But the other combatant 
commands have been reduced in some cases or had contractors 
eliminated to a more standardized model appropriate to their 
theaters, that is Africa Command, Southern Command, Northern 
Command, and European Command. There have been some savings in 
that area.
    We've also consolidated missions. The counter-threat 
finance mission has been, on the intelligence side, assigned to 
the Defense Intelligence Agency (DIA), so this will develop 
more focused intelligence to support Treasury and other 
policymakers who have the lead in this area, but also eliminate 
some redundancies. We had a lot of counter-threat finance 
intelligence across the Department.
    We've also done the same in counterterrorism intelligence 
in the Department in empowering our Joint Intelligence Task 
Force for Counterterrorism in DIA to be the lead.
    I would add that we've reduced senior executive service 
ranks, contractors, and others. I would add that Secretary 
Gates has been very clear that these rounds of efficiencies are 
really the first step in looking at eliminating redundancy. 
Intelligence is increasingly important to our policymakers and 
to our operators, but it's also an area in which the American 
people and Congress invest a lot of treasure and we have to 
make sure it's as efficient as possible. If confirmed as 
USD(I), it's something that will be on the top list of my 
priorities.
    Senator Hagan. You've said that a lot of these efficiencies 
have taken place, but you'll also work to ensure that more 
efficiencies will go forward in these same areas?
    Dr. Vickers. Let me clarify, Senator Hagan. The decisions 
have been made to standardize these intelligence organizations. 
There is an implementation plan that will occur. But yes, 
additional efficiencies might well be sought. Senator Levin 
mentioned in his opening comments about intelligence, 
surveillance, and reconnaissance assets and Senator McCain as 
well, that we probably still have some homework to do down the 
road.
    Right now we're trying to give all the support we can to 
our warfighters in Afghanistan, but over time we will 
rationalize those as we move forward.
    Senator Hagan. Obviously, we do want to support them in 
every fashion possible.
    Deputy Secretary of Defense William Lynn has addressed the 
Department's cybersecurity strategy, which I understand 
involves five pillars: the first, recognition that cyberspace 
is a new domain of warfare; two, proactive defenses, avoiding a 
fortress mentality; three, ensure the safety of critical 
infrastructure; four, undertake collective defense; and five, 
sustained technological advantage.
    Dr. Vickers, within these pillars, which do you see as the 
most challenging to facilitate, and why? Just the whole pillars 
of cybersecurity.
    Dr. Vickers. Let me say, cyber is an increasingly important 
domain of warfare or competition, used both for intelligence 
purposes as well as potentially destructive purposes or 
warfighting purposes. The U.S. Cyber Command is overseen by our 
Policy Under Secretary and the Chairman of the Joint Chiefs, 
while the Office of the Under Secretary of Defense for 
Intelligence really oversees the intelligence aspects of this.
    But let me try to address your question in saying that the 
reason Cyber Command was established was because of the need to 
have a command for this emerging domain that is so important to 
our national economy and infrastructure, as well as our 
warfighting, but also someone to have an organization and a 
commander that had responsibility for both offense and defense, 
protecting our networks as well as potentially using this tool.
    That integration of offense and defense I think will be 
very critical to our future, supported by appropriate 
intelligence in this new area.
    Senator Hagan. Thank you.
    Dr. Rooney, let me ask you. When confirmed, you will play 
an integral role in implementing Secretary Gates' efficiencies 
initiatives also related to personnel, namely the Army and 
Marine Corps end strength reductions, freeze in civilian hire, 
reduction in contractors in the administration of TRICARE. What 
do you believe will be the impact of these initiatives?
    Dr. Rooney. Yes, the efficiencies initiatives, as you've 
suggested, cut across many of the areas under personnel and 
readiness. The first one, from the human resource side, gives 
an opportunity to really take a look at that mixture of Active 
Duty, Reserve, civilian, and contractors, and looks at the 
roles, contractors and civilians, are playing in support 
services. Are some of those same programs still viable? Do they 
need to be administered differently? I think I've seen the term 
used, ``good business practices,'' and that's really just 
another way of saying, ``should we be doing the same thing, and 
if so should it be done maybe a little bit differently?''
    That would be the personnel side and are there ways to cut 
some of those costs and combine, really assess, programs. If 
they're not working, then at that point they need to be 
eliminated and resources shifted to more critical, mission 
critical-type initiatives.
    The health care side again is a myriad of possible 
initiatives, everything from a slight increase in the premiums, 
because that hasn't been changed since the mid-1990s, but also 
changing behaviors--prescription drugs, using mail order 
instead of the current system ends up saving a tremendous 
amount over the years. What we call supply chain, which is as 
you're purchasing, doing similar purchasing and look at how 
you're purchasing supplies for a hospital setting. You get 
great efficiencies in that. Contracting, another way that you 
can also look at your contracts, make sure you're getting not 
only the best prices, but coordination in those areas.
    Then there's some other, longer-term initiatives that end 
up eventually impacting efficiency, and that would be looking 
at practice plans. Are there ways to use urgent care facilities 
so that we're not forcing people to go to emergency rooms? 
That's also an issue on the civilian side. So there are some 
opportunities there, and using primary care physicians 
differently in terms of practice focus, and then also those 
types of things I've seen also working in mental health areas. 
It would be those types of things, taking the current proposals 
and expanding on them.
    Senator Hagan. You certainly do have a full plate in front 
of you. I will say, please look at TRICARE. So many of the 
individuals are having trouble having TRICARE accepted in 
places that are outside the actual bases.
    My time is up. Once again, I thank both of you for your 
commitment to our country. Thank you.
    Senator Reed. Thank you, Senator.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Vickers, you're eminently qualified by virtue of 
your military background, your operational experience, your 
educational enhancement, and your policy experience. I think 
this is a great fit and I will be a very strong supporter and 
hope to be working with you on some of these issues in the near 
future.
    Dr. Rooney, I congratulate you on a very strong career to 
date, particularly in the academic area, and your willingness 
to serve. At the same time, I would like to learn more from you 
about how you have prepared yourself to take the experiences 
that you have had and apply them to this position. It's my 
understanding from reading your bio that you have not worked 
with DOD before; is that correct?
    Dr. Rooney. Yes, sir, that's correct.
    Senator Webb. This is an extremely important under 
secretaryship. I would like to point out that I recommended the 
creation of this position in 1985 in a memorandum to Caspar 
Weinberger. I'm not the only person who's ever recommended this 
position, but at the time when I was serving as Assistant 
Secretary of Defense, we had 11 different stovepipes moving up 
to the Secretary, which was not a healthy management model. Cap 
Weinberger's hesitation at the time was that it was going to 
consolidate so much of the responsibilities, the day-to-day 
responsibilities of DOD, under one office, and if you're going 
to do that, you need to make sure that the people at the top 
comprehend the special nature of military service and of DOD.
    I'd like to point out, if I may--you may have come across 
this--that solutions in the military don't always compute on a 
traditional civilian model. There are a lot of different 
factors in military service and across the board. We have these 
situations in the acquisition side, too, as well, but 
particularly in the area of personnel.
    Your nomination has come forward very fast. It was sent on 
February 4, which was a Friday, and we've had 11 days, most of 
which last week we weren't here. I have not had the opportunity 
to meet with you. I'm the chairman of the Personnel 
Subcommittee, which is the subcommittee that would have policy 
jurisdiction over the issues that you're working on.
    Can you give me a better idea of how you have prepared 
yourself to understand the unique cultures that are involved in 
the United States military?
    Dr. Rooney. Yes, sir, I'd be happy to do that. I will step 
back a bit and say that when I went from being a business 
executive with a background in finance and tax law into higher 
education, my first presidency at a doctoral-level institution, 
I had never been a higher education administrator. I had taught 
for a number of years, but never ran a college or university. 
The way I assimilated into that culture was to be a perpetual 
student, which is what I would also propose here: learned 
really what happened in the institution and walk around, talk 
to people, listen, understand. It turned out to be very 
effective, to the point where I, prior to this, have been at my 
second presidency.
    The same with hospitals. When I first started on a hospital 
board, quite frankly, the first meeting I sat in I didn't 
understand most of the acronyms that were put in front of me. 
Again, what I really did was took the time to study it, talk to 
the people, spend time in the traditional form, as they say, 
walk-around management.
    As Senator McCain pointed out earlier, one of the first 
things I would do would be to continue what have been 
tremendous briefings, but they have certainly been briefings, 
sir, and material I've been able to read and get a handle on, 
to understand more clearly the military culture, but also that 
connection between the military members that this role would 
have responsibility for overseeing, personnel and readiness, 
but also the civilian counterparts in many ways and how that 
system worked together, and the contractors.
    I think it would be the breadth of understanding all of 
that, and I think my experience in the past shows that I can 
definitely make that transformation and dive in with that 
passion and that lifelong education focus, would enable me to 
prepare and be very effective for this role.
    Senator Webb. There are military cultures and there are 
cultures within the military cultures, and there are 
expectations that have evolved based on service in different 
eras, and they all affect the area that you are sitting here 
waiting to be confirmed on.
    When I was the Assistant Secretary of Defense for Reserve 
Affairs, we had all 4 Active Services, all 7 Guard and Reserve 
components, plus political civilians and career civilians, and 
at any staff meeting we had at least 11 different cultural 
traditions among the uniformed people sitting at that table, 
with different relationships, quite frankly, with the 
overarching policies of DOD.
    On issues of health care, you just mentioned the notion of 
increasing the premiums on TRICARE. Would you elaborate on 
that?
    Dr. Rooney. I mentioned that one of the efficiencies 
initiatives set out for us by the Secretary was a modest 
increase, and I believe that number was about $5 per month, in 
the premiums, understanding that we have the duty and 
obligation to support our Service people--it's what we said 
from the beginning, that we would take care of our Service 
people--but on the other hand trying to find a balance of 
supporting that, but also doing it in a fiscally sound and 
sustainable manner. I would support the Secretary's position in 
looking at those modest increases.
    Senator Webb. Here's something you want to remember. As 
someone who grew up in the military, served in the military, 
have family members in the military, health care--lifetime 
health care for career military people--was part of a moral 
contract. I grew up inside that moral contract. On the one 
hand, if you're applying a civilian model to a DOD medical 
program, you can say, ``well, if you compare a civilian health 
care plan, this is an incredibly good deal.'' On the other 
hand, these are people who have been told since the day they 
came into the military that they're going to have health care 
for the rest of their lives if they give a career to the U.S. 
military.
    It's a moral contract. I'm the chairman of the subcommittee 
that's going to have to evaluate this proposal, and I hope you 
will pay strong attention to--again, this is the abstract 
nature of military service that doesn't come out when you try 
to compare a model directly with civilian programs.
    There are a number of other areas like that. I'm going to 
ask you to do something. I'm going to ask you to come by and 
see me. I did not have the opportunity to talk to you, and we 
can discuss some of these things a bit more.
    Dr. Rooney. I would welcome the opportunity, sir.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Webb.
    I'm next in order, but let me recognize Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Let me too add to all of my colleagues, our thanks for your 
service, to both of you, and your willingness to serve. I think 
it's admirable.
    Dr. Vickers, first with you. I've read your bio and I've 
learned a little bit about you and I like everything I see. 
Also, I'm new. With some of my colleagues, we're new to this 
committee, but we're also new to this process of evaluating 
where we are in the world, where we're going and how we get 
there in the most efficient manner. You seem to have been part 
of an Afghanistan movement back with the Soviet Union and what 
you were able to witness, what you were able to be a part of, 
to see an outcome, and to see how we dropped the ball. I think 
that was very well-documented.
    We're in a situation now where, if you could for me 
identify who our enemy is in the Middle East, what the strength 
of our enemy is, what is the cost to our enemy, what they're 
financing their war with, and compared to what we as the United 
States Government and the people that are supporting our 
troops, which we will always do, and the comparison between 
what you saw in the outcome of the Soviet invasion of 
Afghanistan to where we are today, and the predicted outcome--
it's the longest war we've ever been in and we're not seeing 
much change. If you could help me with that, sir, first, your 
evaluation, because I don't know of a better person that's had 
a bird's-eye view and can evaluate this than you.
    Dr. Vickers. Thank you, sir. As you alluded to, one of the 
tragedies at the end of the Cold War, one of the great 
tragedies, is that we, after winning the war in Afghanistan, 
driving the Red Army out, failed to win the peace and left a 
sanctuary in which al Qaeda could grow, in partnership with the 
Taliban, that then led to the events of September 11. Secretary 
Gates has said repeatedly that we will never make that mistake 
again.
    As part of your second question----
    Senator Manchin. I'm sorry to interrupt you on that, but if 
I could just ask for a further clarification. With that comment 
that Secretary Gates made and with the failure of before, of 
the Soviets, then what we're saying is that we need to have a 
presence, maybe a different type of a presence, but we will 
have to have a presence over there. The American people should 
understand, the citizens of this country should understand, we 
have to have a presence there.
    Dr. Vickers. What form that engagement takes, of course, 
will be determined based on conditions down the road. But 
unlike at the end of the Cold War, where we essentially 
disengaged from that region and allowed an ungoverned area to 
become very hostile to us and to provide a sanctuary for al 
Qaeda, it's something that we don't want to repeat. A core 
element of our counterterrorism policy is to deny any sanctuary 
to terrorists, so that they can't plan operations against the 
Homeland or our interests abroad.
    You asked about the enemy. Unlike the Cold War, which was a 
very daunting time for Americans of a previous generation, but 
it had one virtue, that we had a principal adversary that we 
could focus on for a long period of time, and we got very good 
at that by the last decade of the Cold War. Today we face a 
more complex environment with a number of challenges around the 
world.
    Foremost among those right now is the continued threat that 
violent extremism poses to us, and specifically al Qaeda. It's 
why the President and his topmost advisors have said we are at 
war with al Qaeda, and that war spans a number of areas. Al 
Qaeda and its affiliates do not depend on great sums of 
financial strength to be able to plot against us in the manner 
they do. The September 11 attacks, for example, were carried 
out with approximately $500,000 of investment.
    Our Treasury Department, working with our interagency 
partners and partners around the world, does everything they 
can to constrict the flow of funds to al Qaeda and other 
terrorist and insurgent groups, and has had a significant 
success. But there are still funds flowing to various groups 
and, as I said, funding is not the critical resource that they 
depend on. It's willing people to do these attacks.
    Senator Manchin. What's the strength of al Qaeda in 
Afghanistan?
    Dr. Vickers. Al Qaeda in Afghanistan is largely confined 
now to mid-level operatives, no senior operatives.
    Senator Manchin. 10,000, 100,000?
    Dr. Vickers. No, sir. The Taliban insurgency is in the tens 
of thousands. Al Qaeda would be under 50,000 or so, 50,000 to 
75,000, and that is on a part-time basis. Al Qaeda is 
principally concentrated elsewhere, in Pakistan and then its 
affiliates in Yemen and elsewhere.
    Senator Manchin. We have how many troops in Afghanistan 
now?
    Dr. Vickers. We have just about 98,000 troops, just shy of 
100,000, and 40,000-some of our coalition partners, and 
building up a substantial Afghan National Security Force 
(ANSF).
    The principal challenge in Afghanistan is the Taliban which 
is still aligned with al Qaeda. They provided sanctuary to them 
in the past. It is adjacent to Pakistan, where al Qaeda's 
senior leadership resides currently. The President's stated 
goal is to disrupt, dismantle, and defeat al Qaeda and prevent 
their return to Afghanistan and Pakistan. So Pakistan and 
Afghanistan are an integrated strategy for the United States. 
Even though Afghanistan is not principally where al Qaeda is, 
it could become a future safe haven if we were to repeat the 
errors we made after the Cold War.
    Senator Manchin. I think the hardest thing that I have to 
understand, I know the people in West Virginia have to 
understand, is the greatest army that history has ever known, 
the United States, and the greatest trained and equipped 
soldiers, we're at 100,000 and let's say that our enemy may be 
at 30,000 maximum, probably more 10,000 or 15,000, by every 
report that I'm receiving.
    I've also read in your bio that you have a different type 
of a procedure that you think would have worked there, or maybe 
you still think that or not, by an unconventional type of war 
with your special operations. I think that it sounds very 
intriguing and it seems like we're not going in that direction.
    Dr. Vickers. Sir, every counterterrorism and 
counterinsurgency challenge has to be taken on its own merits 
and time. Ultimately, these are internal conflicts or 
transnational conflicts. We can't prevail in these wars 
without--in the counterterrorism case, it's a global 
challenge--a host of international partners. We simply couldn't 
do it by ourselves. In any intra-state conflict, in an 
insurgency, ultimately it's the locals that have to be able to 
secure their territory. Sometimes we have to create the time 
and space for them to be able to do that as we build them up.
    After our great success in 2001 of overthrowing the Taliban 
and kicking al Qaeda out of Afghanistan, we unfortunately did 
not build up ANSFs to a sufficient level where they could gain 
control or stabilize their country and secure it. We are 
rapidly addressing that in the past few years.
    Again, I would just caution that some of this is in the 
range of tactics specific to a portion in time, that may apply 
to one situation or one country and not another, or for this 
period of time and not a later period of time. But ultimately 
we have to empower locals to succeed.
    Senator Manchin. Mr. Chairman, if I may very quickly just 
follow up.
    If I may request that maybe I can meet with you personally 
and go into that in more detail, I would appreciate it very 
much, sir.
    Dr. Rooney, just very quickly. I have heard and I know that 
Senator Webb had mentioned and talked about some concerns he 
may have. That would be a valid concern when you see the 
resume, but the bottom line is I also see your private sector 
experience, too. Would you consider yourself a cost-cutter or 
efficiency expert?
    Dr. Rooney. I think if you ask those that have worked with 
me, they'd probably say yes.
    Senator Manchin. Thank you.
    Senator Reed. Thank you, Senator Manchin.
    Let me take my time and then recognize Senator Ayotte for a 
second round and, Senator Blumenthal, if you also want a second 
round.
    Secretary Vickers, Dr. Rooney, welcome. Thank you for your 
service. I've had the privilege to work with Secretary Vickers 
before. Thank you very much.
    First of all, because of your extensive experience in your 
field of endeavor, if there's anything that you feel would be 
best held to comment on in a private, nonpublic session, let me 
know. Don't feel obliged to answer. But one question I think is 
obvious in the wake of the last several days. We have 
cooperated and collaborated with intelligence services 
throughout the Maghreb--Tunisia, Algeria, Egypt, et cetera. 
What's your estimate of the status today of that cooperation 
going forward? Would that impose any complications on efforts 
under your jurisdiction?
    Dr. Vickers. Sir, the U.S. Government has intelligence 
relationships with scores of partners around the world, many 
scores of partners, including in North Africa and the Middle 
East. Each of those relationships is important in some right, 
but they vary in terms of the depth of intelligence sharing and 
the particular threat that emanates from that country. I would 
hesitate in this open session to give a general answer, other 
than it's very important.
    A number of al Qaeda plots are broken up every year and 
they are done by our local partners with intelligence 
assistance in some cases from us, in some cases intelligence 
provided by them. Our relationships with some of these 
countries that have had instability in recent weeks, we've had 
longstanding ties with them that will transcend this 
instability, both on the military side and on the civilian 
intelligence side. Sir, I'd be happy to talk to you about it in 
greater detail.
    Senator Reed. Let me open up another topic, which Senator 
Hagan alluded to. That's cyber security. History often suggests 
that we fight the last war and prepare for the last war. I 
think we all recognize now that, even in the context of low-
intensity conflict, that cyber activities are becoming 
increasingly more important. Let me pose some issues.
    How well do you think we're prepared for it, its coming, to 
what are the gaps, technological, institutional, and even legal 
gaps, in terms of your ability to actually deal with this new 
technology?
    Dr. Vickers. Sir, it is critically important and it's a 
domain that, as you indicated, is employed by both state and 
non-state actors in both forms of conflict, both for 
intelligence purposes as well as disruption and others. Cyber 
poses a number of challenges because it is inherently a global 
enterprise, so a lot of cyber traffic, of course, comes through 
the United States, which previous Congresses have addressed, 
which has been a tremendous help to U.S. intelligence.
    I would be guilty of practicing law without a license if I 
go too far----
    Senator Reed. You wouldn't be the first here. [Laughter.]
    Dr. Vickers. But in some cases it raises questions when the 
web site or server, for example, raises neutrality questions in 
law, of where that site is located. So it poses a number of 
unique challenges for us.
    Then of course, there's always intelligence gain-loss when 
we look at operations in these areas. Is it better to monitor 
someone or take down? There's always very difficult decisions 
for policymakers to weigh in that area as well.
    Senator Reed. I think this is again a topic that will 
consume us, indeed consume us going forward.
    Dr. Rooney, you've had an extraordinarily accomplished 
career. My colleagues with more experience have commented on 
the unique culture of the military, and it is unique. But my 
sense is that you have associated yourself and worked with 
people who share some of the same attributes as our military. 
They have vocations, not just jobs; and they're dedicated to 
selfless service, not just to personal ambition. I think in 
your service and your association you have those, so I think 
those might be touchstones going forward as you begin this job 
and I think they will be valuable touchstones.
    But let me ask two basic questions. You have a myriad of 
responsibilities, from the immediate you've spoken about, but 
there's one that's continuing, and that is to try to integrate 
not just the operations within DOD, but DOD and the Department 
of Veterans Affairs (VA). I know VA Secretary Shinseki has been 
working very diligently on this.
    We have problems where soldiers, sailors, marines, and 
airmen are injured and then they had disability determinations 
and then they're transferred to the VA system and there's no 
continuity of care. Just whatever impressions you have today of 
how you're going to deal with more fully integrating what the 
VA does for our veterans with what DOD does for Active Duty and 
Reserve personnel?
    Dr. Rooney. Yes, sir. While I have not been able to have an 
entire deep dive, what I can say is what I've learned is you're 
absolutely correct that the timing--even with the new 
integrated system--there is the first phase of that's been put 
in; there's two more phases throughout this year. My 
understanding is that will proceed on the timeline outlined. 
But those timeframes are still approaching just under a year, 
340 days, I think was the last I saw.
    I think any of us sitting here, while we might not know 
what the exact answer is, if you're looking for those services 
a day is too long, a week is too long. There are clearly some 
opportunities where better coordination and being able to 
understand where that process is bogging down. My understanding 
is it's in three different areas. What can be done to ensure 
much better communication and cooperation, building on--yes, a 
technology infrastructure is one way, so you don't duplicate 
services, but it's not the only answer at this point.
    I concur that what I've seen really points out some 
improvement, but a dramatic need for some further coordination 
between all areas.
    Senator Reed. Thank you.
    One other area. Under the new financial reform legislation, 
we have created a Consumer Financial Protection Bureau, and 
within that Bureau, there is an Office of Servicemember 
Affairs. In fact, Holly Petraeus is leading that up. I'm sure 
you will, but I urge you to ensure you link up, because some of 
the problems that military personnel face in terms of paying 
bills, in terms of getting appropriate resolution of their 
rights under the Servicemembers Civil Relief Act is a function 
not only of DOD, but this new bureau. A lot of what you can do 
and will do through the Services is educating young military 
personnel about their rights and their responsibilities. That's 
just some advice as you, I assume, prepare to take these 
responsibilities.
    Dr. Rooney. Thank you, sir. If confirmed, I will.
    Senator Reed. Thank you very much, doctor.
    Dr. Rooney. Thank you.
    Senator Reed. Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Dr. Rooney, you were talking with Senator Webb about the 
health care system within the military and he mentioned to you 
the moral obligation that we have to the military. Appreciating 
that we're in a fiscal climate where we do need to look to do 
things differently, there are still some unmet needs. In my 
State of New Hampshire, we have approximately the fifth or 
seventh highest per capita rate of veterans in the country. 
Yet, effectively we're the only State in the Nation that does 
not have a full-service veterans hospital. Alaska is similarly 
situated, but there is an Active Duty military base in Alaska 
where there is full service available.
    I would ask you for a commitment to work with me to look at 
that need and to come up with a solution so that the needs of 
veterans in New Hampshire are met, and particularly since we 
have more and more deploying as well in the Guard and becoming 
veterans and serving our country.
    I would ask you to look at that very carefully, because it 
is a moral obligation that we have to fulfill and, 
unfortunately, my State is one where I don't believe that moral 
obligation is being fully met.
    Dr. Rooney. Absolutely. If confirmed, I would look forward 
to that.
    Senator Ayotte. Thank you very much.
    The other question I have for you, we had talked briefly 
yesterday about this, but given the multiple deployments of our 
Guard and Reserve, what is it that you think that we can do to 
ensure that when our Guard and Reserve deploy and also when 
they return home that the services are in place to make sure 
that as they return to civilian life, both they and their 
families are getting the services that they need? Because with 
the multiple deployments in the Active Duty, there is usually a 
base where there is a much more robust set of programs 
available than in the Guard and Reserve. Yet we've asked so 
much of our Guard and Reserve with these deployments.
    I would ask you what thoughts you have on that to make sure 
that we are serving our Guard and Reserve and so when they come 
home that they can acclimate back into civilian life and we 
give them that support that they deserve?
    Dr. Rooney. You're right. I'm glad we had a brief 
opportunity to have that conversation. But really, the issue 
does come that this is the first time where we have relied on 
the Guard and Reserve and their families to the extent that we 
have with multiple deployments. One of the factors I think 
everyone is recognizing now is when these people go home it 
isn't to a base. They're scattering throughout their States, 
they're scattering throughout the country.
    The Department has not always been acutely aware of how to 
connect those people to services. At times--and we talked about 
it--there are some good examples where private sector 
nonprofits are brought in to be able to cover that. But that's 
not uniform across the country. So it would be a combination of 
looking at some of those States and those areas where those 
services are being connected better and seeing ways to do that 
across the country.
    The other thing would be to close some gaps, where there 
are benefits being given to Active Duty, but yet there's some 
that slip through for education, potentially, to make sure that 
those again extend to employers; to see how again that reentry 
process can be either streamlined and also involve the 
employers in that. Again, it's uniformity across the country, 
but there are some good examples out there to build on.
    Senator Ayotte. Very good. I appreciate that, and also 
would point you to a New Hampshire program called the 
deployment cycle support program that is a partnership between 
State agencies and also the private sector, as a pilot or one 
that you could look to, that I think is very effective and one 
that other States could employ as well.
    Dr. Rooney. Absolutely.
    Senator Ayotte. Secretary Vickers, we had testimony in 
February from General Austin and Ambassador Jeffrey about Iraq 
and our withdrawal from Iraq in December. I wanted to get your 
assessment, the other day I saw a report of another terrorist 
incident in Iraq. My question to you is, do you have any 
concerns about our ability to transfer security as of December 
to the Iraqis? Also, we're going to leave a significant 
responsibility to protect our own people with the State 
Department, without the military support. What thoughts do you 
have on that?
    Dr. Vickers. I am confident that we're on the path toward 
this transition. There will be a robust civilian mission--as 
Iraq becomes a normal country, there will still be a large 
diplomatic mission, with military assistance, intelligence, a 
range of things to ensure that any threats to the stability of 
Iraq or threats external there are properly dealt with through 
our Iraqi partners.
    That transition has already been well underway since August 
2010 on a path to the end of 2011, and I have no reason to 
expect that it won't succeed. There is still violence in Iraq, 
but it is at very low levels compared to what it has been. Some 
of these attacks of course make news and they will continue to 
be a challenge for Iraq going forward, but it's something I 
have high confidence that the Iraqis can handle.
    Senator Ayotte. Thank you, Mr. Secretary.
    Senator Reed. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Just a couple of quick questions. First, to pursue the very 
significant questions asked by Senator Reed, and more comment 
on them than question. If there are any legal impediments to 
your efforts in this cyber area, I would very much like to know 
about them and I hope that you will suggest them, because I 
think, as Senator Reed very importantly observed, this is the 
next war or it may be even the present war, and if there's 
anything that you need in that area, meaning you collectively, 
DOD, our defense efforts, I would appreciate your letting us 
know.
    Then to pursue an answer that you gave to Senator McCain. 
He asked about the corruption in Pakistan, which you very 
adroitly referred to as a governance challenge. Do we face the 
same kind of governance challenge in Afghanistan and, if so, to 
what extent, and what are we doing about it?
    Dr. Vickers. Yes, sir. In any counterinsurgency, governance 
and development are essential lines of operation as much as 
security. Ultimately, of course, it's up to the people of a 
nation to determine how they'll be governed. Afghanistan's 
history has been one essentially of decentralized government, a 
central state that does some functions, but then the provinces 
and local areas have a lot of autonomy. When Afghanistan has 
been stable throughout its history, it's been with that model.
    The challenge is to make sure that there is governance that 
first and foremost meets the needs of the Afghan people, but, 
second, also does not undermine the international coalition's 
effort through corruption or other areas in providing 
assistance to the Government of Afghanistan. So governance is a 
central challenge in stability and it is in Afghanistan as it 
is in many countries around the world. But in Afghanistan, of 
course, we have 100,000 troops and so we care very dearly about 
it.
    Senator Blumenthal. Thank you.
    Dr. Rooney, just very briefly. You may be aware that in the 
past there have been difficulties in some of the treatment of 
our National Guard and our reservists in terms of recognizing 
that they have become in effect part of our Active-Duty Force 
and the failure to recognize that service in educational 
benefits and sometimes health care has been a problem. I've 
observed it in Connecticut, and I would appreciate your 
commitment that you will do everything possible to make sure 
that they are given the recognition they deserve in terms of 
those benefits and fair treatment and keeping faith with them.
    Dr. Rooney. Absolutely, sir.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Blumenthal.
    I want to thank Secretary Vickers and Dr. Rooney for your 
testimony today and, on behalf of Chairman Levin and the 
Ranking Member, Senator McCain, for your service and your 
prospective service.
    If there are no further questions, the hearing is 
adjourned.
    [Whereupon, at 11:11 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Michael G. Vickers by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols DOD Reorganization Act of 1986 and 
the Special Operations reforms have endured for a generation. I do not 
see a need for any modifications at this time. If confirmed as the 
Under Secretary of Defense for Intelligence (USD(I)), I will be alert 
to the need for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the USD(I)?
    Answer. The USD(I)'s primary responsibility is to support the 
Secretary of Defense in discharging his intelligence-related 
responsibilities and authorities under title 10 and title 50 U.S.C. 
This includes: serving as the principal intelligence advisor to the 
Secretary of Defense; exercising authority, direction, and control on 
behalf of the Secretary of Defense over all intelligence organizations 
within the Department of Defense (DOD); ensuring that intelligence 
organizations in DOD are manned, organized, trained, and equipped to 
support the missions of the Department; ensuring that the DOD 
components, which are also elements of the Intelligence Community, are 
responsive to the Director of National Intelligence (DNI) in the 
execution of the DNI's authorities; ensuring that the combatant forces, 
the Joint Chiefs of Staff, and the civilian leadership of the 
Department are provided with appropriate intelligence support; ensuring 
that counterintelligence activities in the Department are conducted and 
managed efficiently and effectively; ensuring that other sensitive 
activities which the Department conducts or supports are conducted and 
managed efficiently and effectively; overseeing Defense Department 
personnel, facility, and industrial security to ensure efficiency and 
effectiveness; serving as the Program Executive for the Military 
Intelligence Program, and ensuring that the DOD components funded by 
the National Intelligence Program are robust, balanced, and in 
compliance with the guidance and direction of the DNI; and ensuring 
that the Department provides the U.S. Congress with intelligence-
related information sufficient to execute its oversight 
responsibilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I believe I have the background and 
experience to perform the duties of the USD(I). My qualifications 
include: my training, operational experience, duties, and 
accomplishments as a Special Forces soldier and officer, Central 
Intelligence Agency (CIA) Operations Officer, and Assistant Secretary 
of Defense for Special Operations, Low Intensity Conflict and 
Interdependent Capabilities (ASD(SO/LIC&IC)); my experience as a 
producer and consumer of intelligence at both the tactical/operational 
and national levels; my experience executing and overseeing clandestine 
operations and covert action programs; and my regular interaction and 
close relationships with the Office of the USD(I), the leadership of 
the U.S. Intelligence Community, and the leadership of several key 
foreign intelligence services.
    For the past 3\1/2\ years as ASD(SO/LIC&IC), I have had 
responsibility for overseeing the global operations of DOD, including 
the war with al Qaeda, the wars in Afghanistan and Iraq, and sensitive 
counterproliferation and counternarcotics operations. I have had 
responsibility for overseeing a wide-range of intelligence operations, 
spanning the full range of intelligence priorities and capabilities, 
and have had responsibility for overseeing and supporting the full-
range of special activities conducted by other agencies of the U.S. 
Government. As a member of the Deputy's Advisory Working Group, I have 
participated in the major resource allocation decisions of the 
Department, including many involving national and military 
intelligence. I have had access to all of the Department's special 
access programs.
    As a senior policy official, I have participated extensively in 
Deputies' Committee Meetings, and occasionally, Principals' Committee 
Meetings and meetings of the National Security Council chaired by the 
President, and through this experience, I have developed a keen 
appreciation for how intelligence supports policy. As a result of my 
oversight of global operations and the operational capabilities of the 
Department, I have developed a deep understanding of intelligence-
driven operations and the Department's intelligence capabilities, 
including those in the cyber domain.
    I am a graduate of the CIA's Career Training Program and a CIA-
certified Operations Officer. I have served operationally in three CIA 
Divisions: Latin America, Special Activities, and Near East and South 
Asia. I have had extensive interaction and have a close relationship 
with the Director and Deputy Directors of the CIA, as well as the 
Chiefs of CIA Centers, Divisions, Offices, and Stations and Bases. I 
have had extensive interaction and have a close relationship with the 
DNI and the staff and components of Office of the Director of National 
Intelligence (ODNI). I have had extensive interaction with and have a 
deep understanding of the intelligence organizations of DOD. I have had 
frequent interaction and have close relationships with the heads of 
several foreign intelligence services.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the USD(I)?
    Answer. If confirmed, I believe there are actions I would need to 
take to strengthen OUSD(I)'s oversight of the military intelligence 
program and clandestine activities and support for the national 
intelligence program. I also believe there are actions I could take 
that could achieve further efficiencies across the Defense Intelligence 
Enterprise.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I believe the Secretary would expect me to 
discharge the duties and functions--both explicit and implicit--as 
outlined above. I believe the Secretary would expect me to ensure full 
intelligence support for ongoing operations; to ensure that 
intelligence operations conducted by DOD are effective and in 
compliance with all relevant statutes, authorities, directives, and 
policies; to ensure that the Defense Intelligence Enterprise is 
postured to prevent strategic surprise; to ensure, without abrogating 
the Secretary's statutory responsibilities, that the DNI has visibility 
and oversight over the full range of intelligence activities in the 
Department; and to ensure that the Defense Intelligence Enterprise is 
as efficient as possible. The Secretary may also assign me other duties 
as his priorities and my background and experience warrant.

                             RELATIONSHIPS

    Question. The Secretary of Defense.
    Answer. If confirmed as USD(I), I will provide my full support to 
the Secretary of Defense in carrying out my duties as his principal 
advisor on intelligence, counterintelligence, and security. I will keep 
him informed, seek his guidance and direction, exercise his oversight 
authority on intelligence, counterintelligence, and security-related 
matters throughout the Department, and attempt to relieve him of as 
many burdens in the intelligence domain as possible.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed as USD(I), I will keep the Deputy Secretary 
fully informed of my activities and will afford him the same support 
provided the Secretary of Defense.
    Question. The Under Secretaries of Defense.
    Answer. Each of the Under Secretaries has vital functions to carry 
out. If confirmed as USD(I), I will work closely with each of them. A 
close relationship between the Under Secretary of Defense for Policy 
and the USD(I) is particularly important. In my current position as 
ASD(SO/LIC&IC), I have worked to forge a close relationship between 
Defense Policy and Defense Intelligence and between Policy and the 
broader Intelligence Community. I have also worked closely with 
components of the IC on major collection systems. If confirmed as 
USD(I), I would to continue to build on these relationships.
    Question. The Assistant Secretary of Defense for Network and 
Information Integration (ASD(NII))/Successor Organization.
    Answer. ASD(NII) has had oversight of enabling capabilities which 
are central to the conduct of intelligence and security-related 
activities. If confirmed, I will work closely with the successor 
organization to ASD(NII) to ensure that this support remains robust.
    Question. The Deputy Assistant Secretary of Defense for Detainee 
Policy.
    Answer. If confirmed, I will work closely with the DASD for 
Detainee Policy on the intelligence aspects of detainee policy and 
operations.
    Question. The Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict & Interdependent Capabilities 
(ASD(SO/LIC&IC)).
    Answer. USD(I) and the ASD(SO/LIC&IC) interact on several important 
matters, and this interaction has grown substantially during my tenure 
ASD(SO/LIC&IC). As the previous ASD(SO/LIC&IC), I will be well-placed, 
if confirmed, to ensure that this close interaction continues. If 
confirmed, I would seek to further expand the already close 
relationships that exist between Defense Intelligence and Special 
Operations Forces (SOF) and between the broader Intelligence Community 
and SOF.
    Question. The Service Secretaries and the Service Intelligence 
Directors.
    Answer. If confirmed as USD(I), as the Program Executive for the 
Military Intelligence Program, I will work with the Secretaries of the 
Military Departments and the Service Intelligence Directors to ensure 
their intelligence requirements are met, that the Military Departments 
and Services develop intelligence capabilities appropriate for the 
current and future security environment, and that the intelligence 
organizations contribute to meeting the intelligence needs of their 
respective Military Department/Service, the Joint Force, the 
Department, and the Nation.
    Question. The General Counsel of DOD.
    Answer. As ASD(SO/LIC&IC), I have worked very closely with the 
General Counsel and his staff. If confirmed as USD(I), I will continue 
to work closely with the General Counsel, and seek his advice on the 
myriad legal issues that impact USD(I)'s duties and functions.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As ASD(SO/LIC&IC), I have worked closely with the Chairman 
and Vice Chairman of the Joint Chiefs of Staff on a wide range of 
issues. If confirmed as USD(I), I would continue this close 
relationship to ensure that Defense Intelligence and the Intelligence 
Community meet the requirements of the Joint Staff and combatant 
commands.
    Question. The commanders of the combatant commands, including U.S. 
Special Operations Command (SOCOM) and U.S. Cyber Command.
    Answer. As ASD(SO/LIC&IC), I have had policy oversight of SOCOM, 
U.S. Strategic Command, U.S. Joint Forces Command, and U.S. 
Transportation Command. I was involved in the initial planning for the 
establishment of U.S. Cyber Command. I have had close relationships 
with all of the geographic combatant commanders. If confirmed as 
USD(I), I will build on these relationships to ensure that the 
intelligence needs of the commanders of the combatant commands are met.
    Question. The Directors of the Defense intelligence agencies.
    Answer. As ASD(SO/LIC&IC), I have worked closely with the Directors 
of the Defense intelligence agencies. If confirmed as USD(I), I will 
exercise the Secretary of Defense's authority, direction, and control 
over the National Security Agency (NSA), NGA, NRO, and DIA. In this 
capacity, I will provide planning, policy, and strategic oversight over 
the intelligence, counterintelligence, and security policy, plans, and 
programs they execute. I will work with the Office of the DNI to ensure 
clear and unambiguous guidance is provided to the Defense intelligence 
agencies.
    Question. The Director of National Intelligence.
    Answer. As ASD(SO/LIC&IC), I have worked closely with the Office of 
the DNI and its components, and have worked closely with the Director. 
If confirmed as USD(I), I intend to fully support the DNI in his goal 
of greater Intelligence Community integration. Dual-hatted as the DNI's 
Director of Defense Intelligence, if confirmed, I will advise the DNI 
on Defense intelligence capabilities. I will exercise the Secretary of 
Defense's authority, direction, and control over the Directors of NSA, 
NGA, NRO and DIA, and I will consult with the DNI regarding national 
intelligence and related matters as appropriate.
    Question. The Director of Central Intelligence.
    Answer. As ASD(SO/LIC&IC), I have worked to forge a particularly 
close relationship between the CIA and the Department. If confirmed as 
USD(I), I will strive to forge an even closer relationship with the 
Director of CIA, and will fully support him in his role as National 
Manager for Human Intelligence.
    Question. The Director of the National Counterterrorism Center.
    Answer. As ASD(SO/LIC&IC), I have worked very closely with the 
Director of the National Counterterrorism Center. If confirmed as 
USD(I), I will build on this already close relationship, and provide 
policy, oversight, and guidance for all Defense intelligence, 
counterintelligence, and security support provided to the National 
Counterterrorism Center.
    Question. The Deputy and Assistant Directors of National 
Intelligence.
    Answer. If confirmed as USD(I), I will fully support the Deputy and 
Assistant Directors of National Intelligence to ensure unity of effort 
in the direction and oversight of the Defense Intelligence Enterprise.
    Question. Officials in the Department of Homeland Security with 
intelligence responsibilities.
    Answer. If confirmed as USD(I), I will serve as the Secretary of 
Defense's focal point for intelligence, counterintelligence, and 
security matters for the Department of Homeland Security (DHS). I will 
work with DHS to expand our intelligence and law enforcement 
information-sharing initiatives with state and local authorities.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the USD(I)?
    Answer. The major challenges that, in my view, will confront the 
next USD(I) are the continued unprecedented scope and pace of global 
operations and unmet demand for intelligence in an era of intelligence-
driven operations; the need to adapt to a rapidly changing intelligence 
environment; the need to address longer-term challenges to prevent 
strategic surprise while fully supporting ongoing operations; and the 
need to do all this in a more constrained fiscal environment. 
Additionally, we must do a better job of protecting intelligence 
sources and methods and preventing unauthorized disclosure of 
information.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed, given the importance of intelligence to 
ongoing operations, I would do my best to ensure that sufficient 
resources are devoted to the Defense Intelligence Enterprise, and that 
intelligence is shared as widely as possible while also ensuring that 
it is properly protected. I would also ensure that the clear priorities 
are established, that actions are taken to mitigate strategic risk, and 
that the Defense Intelligence Enterprise is as efficient and adaptive 
as possible.
    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the USD(I)?
    Answer. One of the most serious problems currently confronting the 
USD(I) is the unauthorized disclosure of classified information. The 
spate of unauthorized disclosures of very sensitive information places 
our forces, our military operations, and our foreign relations at risk. 
It threatens to undermine senior leaders' confidence in the 
confidentiality of their deliberations, and the confidence our foreign 
partners have that classified information they share with us will be 
protected.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. The Office of the USD(I) (OUSD(I)) recently led a 
comprehensive review of information security policy. If confirmed, I 
will work with the DOD Chief Information Officer to facilitate 
immediate implementation of the review's recommendations, as 
appropriate, and will take additional actions as required.

                               PRIORITIES

    Question. As ASD(SO/LIC&IC), you were quoted as saying: ``I spend 
about 95 percent of my time on operations'' leaving the rest of your 
time for ``Service Secretary-like'' activities including policy, 
personnel, organizational, and development and acquisition decisions 
impacting Special Operations Forces.
    Do you believe that division of time was appropriate in your 
position as ASD(SO/LIC&IC)?
    Answer. I have been assigned a very broad set of responsibilities 
during my tenure as ASD(SO/LIC&IC). Per the statutory obligations of 
ASD(SO/LIC&IC), I have oversight of Special Operations Forces. I also 
serve as the Secretary's principal advisor on Irregular Warfare matters 
across the Department. I help provide oversight of the Department's 
global operations, including the war with al Qaeda and its affiliates 
and the wars in Afghanistan and Iraq, and have shared oversight of the 
Department's clandestine operations and sensitive activities, including 
several which have involved the collection of intelligence. I have 
regularly participated in the national security policy decisionmaking 
process at Deputies' Committee meetings, and serve as the Secretary's 
principal advisor on special activities conducted by other agencies of 
the U.S. Government. In my Interdependent Capabilities role, I have had 
oversight of the Department's strategic and conventional forces, in 
addition to the Department's Special Operations Forces. I also help 
oversee the Department's special access programs. I have oversight of 
the Department counternarcotics and counterthreat finance activities, 
stability operations, partnership strategy, and humanitarian assistance 
and disaster relief, and was recently assigned responsibility for 
overseeing additional aspects of the Department's information 
operations (IO).
    The time I have personally devoted to each of these areas has 
varied, consistent with their importance to the Department's mission 
and the degree to which I could delegate oversight to my Principal 
Deputy. During the first 18 months of my tenure, I spent substantial 
amounts of time on capability and resource allocation decisions across 
strategic, conventional, and Special Operations Forces. During the 
2009-2010 Quadrennial Defense Review, I focused intensely on the 
Special Operations and Irregular Warfare capabilities of the 
Department. The unprecedented scale and scope of operations in which 
U.S. forces are involved, and the strategic importance of and oversight 
required for sensitive activities conducted by the United States have 
required increasing amounts of my time since mid-2008. With the war 
with al Qaeda and its affiliates, the war in Afghanistan, and other 
sensitive operations for which I have oversight responsibilities, the 
preponderance of my time in 2010 has been devoted to oversight of 
operations. This has been in line with the President's and Secretary's 
priorities. Throughout my tenure as ASD(SO/LIC&IC), blessed with my 
exceptionally capable and willing partner in Admiral Eric Olson, I 
believe that I have provided the strong oversight of and advocacy for 
Special Operations Forces that Congress intended when it established 
the position of ASD(SO/LIC). I likewise believe I have been effective 
in fulfilling my duties across my entire portfolio. Accordingly, I 
believe that the allocation of my time has been appropriate.
    Question. How would you anticipate dividing your time as the 
USD(I)?
    Answer. Although there is some overlap, the duties and functions 
assigned to USD(I) are very different from those I currently have as 
ASD(SO/LIC&IC). That said, if confirmed, I would use a similar approach 
to allocating my time: focusing on the President's and Secretary's top 
priorities and on the most difficult challenges, and delegating other 
responsibilities where I can to my Principal Deputy or other senior 
staff. I would anticipate dividing my time broadly between oversight of 
intelligence operations, the development of intelligence capabilities, 
and other duties as the Secretary and the DNI may assign.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the USD(I)?
    Answer. If confirmed as USD(I), I would establish the following 
broad priorities: (1) ensuring that the full weight of Defense 
intelligence capabilities are brought to bear to achieve the 
President's objective of disrupting, dismantling, and defeating al 
Qaeda, creating and sustaining stability in Afghanistan, Pakistan, and 
Iraq, and supporting other ongoing operations in which the Department 
is engaged or may be engaged; (2) ensuring that intelligence operations 
conducted by DOD are effective and in compliance with all relevant 
statutes, authorities, directives, and policies; (3) ensuring that the 
Defense Intelligence Enterprise is postured to prevent strategic 
surprise and fully exploit emerging opportunities; and (4) ensuring 
that the Defense Intelligence Enterprise is as efficient as possible. I 
would expect to pay particular attention to ensuring that we have the 
right collection and analytical priorities, that we have a robust ISR 
architecture (both space and airborne), today and in the future, that 
the Department's clandestine operations are fully integrated with those 
of the CIA and National Clandestine Service, that the President's 
highest priority intelligence programs are fully resourced, that 
analysis addresses policymakers and operational commanders' needs, that 
intelligence is timely, accessible, and protected, and, where 
appropriate, that we aggressively exploit advances in technology to 
improve our intelligence capabilities.

                          COMBATING TERRORISM

    Question. What is your understanding and assessment of the 
Department's comprehensive strategy for combating terrorism (CT), both 
at home and abroad?
    Answer. The Department's counterterrorism strategy directly 
supports the President's stated goal to disrupt, dismantle, and defeat 
al Qaeda and its affiliates, first operationally and regionally, and 
then strategically and globally. Operationally defeating al Qaeda and 
its affiliates requires actions that render the organization incapable 
of planning and conducting attacks. Doing this requires, among other 
things, that the relationship between al Qaeda and groups that support 
al Qaeda and provide it sanctuary be severed. Strategically defeating 
al Qaeda requires preventing al Qaeda's resurgence. Achieving these 
aims requires a sustained global CT campaign involving several mutually 
reinforcing direct and indirect lines of operation. These include 
preventing the acquisition and use of weapons of mass destruction by 
terrorist groups, conducting operations to disrupt, dismantle, and 
defeat terrorist organizations and deny them sanctuary, building the 
capacity of our partners, and countering radicalization. Within zones 
of hostilities, the Department has a lead role, along with our 
international partners. Outside such zones and those areas where named 
operations authorized by the President are being conducted, the 
Department plays a supporting role. While al Qaeda and its affiliates 
remain the most dangerous threat to the United States, my assessment is 
that we--the Department, the U.S. Government, and our international 
partners--have the correct strategy, and it is increasingly working, 
particularly since mid-2008.
    Question. If confirmed, how would you fulfill your responsibilities 
related to combating terrorism?
    Answer. If confirmed, I will build on the work of my predecessors 
to ensure that the Defense Intelligence Enterprise is fully engaged and 
supportive of all efforts to defeat al Qaeda and combat terrorism. I 
will work closely with the Military Departments and Services, the 
Defense intelligence agencies, the combatant commanders, the 
Intelligence Community, and our international partners to ensure that 
we have the intelligence capabilities we need to achieve our CT 
objectives.
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. During my tenure as the ASD(SO/LIC&IC), it has become 
increasingly clear to me that close collaboration among U.S. 
departments and agencies and with our international partners is 
essential to CT success. Within DOD, we have restructured our 
organization to ensure full interagency contributions to the fight, 
through the establishment, for example, of Joint Interagency Task 
Forces (JIATF). We have forged an extremely close operational 
partnership with CIA and the Intelligence Community, and we have 
substantially strengthened our international capacity building efforts. 
We have also given top priority to the rapid development of CT and 
counterinsurgency (COIN) capabilities. I believe these actions posture 
the Department to effectively combat terrorism.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
agencies?
    Answer. During my tenure as ASD(SO/LIC&IC), we have worked hard to 
achieve unity of effort in CT operations across the U.S. national and 
homeland security establishment. This has included significant efforts 
to improve coordination of operations and interagency concurrence. If 
confirmed as USD(I), I would seek to build on this by moving, for 
example, from coordination of intelligence operations to integration.

                        SECTION 1208 OPERATIONS

    Question. As ASD(SO/LIC&IC), you had oversight of all section 1208 
activities by Special Operations Forces to provide support (including 
training, funding, and equipment) to foreign regular forces, irregular 
forces, and individuals supporting or facilitating military operations 
to combat terrorism.
    What is your assessment of this authority?
    Answer. Since its enactment in 2005, Section 1208 has been a 
critical authority for the war with al Qaeda and for counterterrorism 
and related COIN operations in Iraq and Afghanistan. While the specific 
details of Section 1208 use are classified, it has enabled important 
human intelligence operations, operational preparation of the 
environment, advance force operations, unconventional warfare 
operations, and partnered CT operations.
    Question. Do you believe changes to the authority and/or funding 
restrictions are needed?
    Answer. I support the current request for additional funding 
authority, raising the annual funding level restriction from $40 
million to $50 million, and I support extending the authority for the 
duration of named counterterrorist operations and for other 
contingencies.

                      SPECIAL OPERATIONS MISSIONS

    Question. During your time as ASD(SO/LIC&IC), Special Operations 
Forces expanded their role in a number of areas important to countering 
violent extremist organizations, including those related to information 
and military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    What changes, if any, would you recommend to SOCOM's title 10 
missions?
    Answer. The list of special operations activities in section 167 of 
title 10, U.S.C. could be updated to reflect SOCOM's current list of 
core tasks and the missions assigned to it in the Unified Command Plan. 
The language in section 167 of title 10, U.S.C. also includes ``such 
other activities as may be specified by the President or the Secretary 
of Defense,'' which provides the President and the Secretary the 
flexibility they need to meet changing circumstances.
    Question. What do you believe is the appropriate role of Special 
Operations Forces in the Department's IO?
    Answer. IOs are a core SOF task. They are a vital instrument in 
countering violent extremism and other transnational threats. They can 
greatly enable unconventional warfare operations. IO support special 
operations from the combatant command level to the tactical 
battlefield.
    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the Intelligence Community?
    Answer. Some intelligence operations conducted by special 
operations personnel have unique attributes which are a function of the 
background, training, and experience of special operators, the missions 
assigned to their organizations, the intelligence targets they pursue, 
and the collection methods they employ. Special operations intelligence 
activities primarily support SOF intelligence requirements. However, 
when directed, SOF intelligence operations also support Intelligence 
Community and combatant commander requirements. For certain national 
collection missions, SOF personnel receive the same training as 
officers in national intelligence organizations.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by Special Operations Forces are adequately 
coordinated with other activities carried out by those in the 
Intelligence Community?
    Answer. Special Operations Forces coordinate their intelligence 
activities with the Intelligence Community as required by applicable 
law, policy, and agreements, including Intelligence Community Directive 
Number 304 and the Memorandum of Agreement between DOD and CIA 
Concerning Operational Activities, July 20, 2005. If confirmed, I would 
further the operational integration between SOF and the Intelligence 
Community that has progressively been put in place during my tenure as 
ASD(SO/LIC&IC).

                MILITARY INFORMATION SUPPORT OPERATIONS

    Question. If confirmed, what role, if any, would you have with 
respect to military information support operations (MISO)?
    Answer. The Defense Intelligence Enterprise plays a crucial role in 
support of MISOs. Collecting and analyzing the information required to 
understand complex foreign human environments is the foundation for 
effective IOs. Additionally, if confirmed, I will ensure that military 
IOs are properly coordinated and operationally integrated with the IOs 
of other organizations within the Intelligence Community.
    Question. DOD recently announced that it was discontinuing use of 
the term ``psychological operations'' in favor of the term ``military 
information support operations.''
    Why do you believe such a terminology change was necessary?
    Answer. Psychological operations as a term had become increasingly 
anachronistic, and had taken on avoidable, negative connotations. MISO 
is a more accurate description of the purpose of these operations.
    Question. What operational and doctrinal impacts do you believe 
such a change will have?
    Answer. I believe it will have positive operational and doctrinal 
impacts.
    Question. In your experience as ASD(SO/LIC&IC), do you believe the 
Armed Forces have sufficient personnel and other assets to conduct the 
range of military information support missions being asked of them?
    Answer. As ASD(SO/LIC&IC), and as a senior advisor to the 2006 
Quadrennial Defense Review before that, I strongly supported 
significant growth in our psychological operations/MISOs force 
structure. MISO forces remain in high demand across our combatant 
commands. MISOs require specially trained personnel and unique 
capabilities, and such personnel are important assets not only for the 
Department, but for other departments and agencies of the U.S. 
Government as well. Given the rapid rate of change in the information 
environment and the diverse character of this environment, sustained 
modernization and a diverse portfolio of capabilities is required. Our 
long-term goal is measured growth and significant quality improvements 
for this force.

                      COUNTERING VIOLENT EXTREMISM

    Question. Over the past few years, DOD has funded a growing number 
of psychological operations and influence programs under the rubric of 
strategic communications programs. While the Department does not have 
any separate documentation outlining these activities, the Government 
Accountability Office reports that DOD ``spent hundreds of millions of 
dollars each year'' to support these operations, including initiatives 
funded by the Joint Improvised Explosive Device Defeat Organization and 
the geographic combatant commands. Many of these programs support 
operations in Iraq and Afghanistan, but Military Information Support 
Teams from SOCOM are also deploying to U.S. embassies in countries of 
particular interest around the globe to bolster the efforts of the 
Department of State and the U.S. Agency for International Development. 
In your capacity as ASD(SO/LIC&IC), you had limited oversight of a 
number of these programs. In the position for which you have been 
nominated, you will continue to play a role in these programs.
    What are your views on DOD's strategic communications, 
psychological operations and influence programs, and their integration 
into overall U.S. foreign policy objectives?
    Answer. The effectiveness of Department IOs in the rapidly evolving 
global information environment is an increasingly important determinant 
of our ability to achieve U.S. military objectives. DOD has an 
important role in IOs, particularly, but by no means exclusively, in 
zones of armed conflict. DOD IOs must be integrated with other U.S. 
Government efforts--those by the Department of State and other 
government agencies--to shape information environments to our 
advantage. They must also reduce our adversaries' abilities to do the 
same.
    Question. In 2005, Ayman al-Zawahiri, al Qaeda's second-in-command, 
declared that ``We are in a battle, and more than half of it is taking 
place in the battlefield of the media.'' Earlier this year, a non-
partisan study highlighted the lack of a U.S. strategy to counter 
radical ideologies that foment violence (e.g. Islamism or Salafist-
Jihadism).
    As ASD(SO/LIC&IC), what did you do to further DOD's strategic 
appreciation of the ideological basis of al Qaeda and its affiliates?
    Answer. DOD fully recognizes the importance of al Qaeda's ideology 
and the extent to which it underpins the al Qaeda movement. As ASD(SO/
LIC&IC), I worked to advance this strategic appreciation within DOD and 
across the interagency. I have strongly advocated for programs and 
activities, many of which are conducted by other departments and 
agencies of the U.S. Government, to deal with the ideological challenge 
posed by al Qaeda and its affiliates. In the unclassified realm, my 
office was recently involved in the establishment of the Department of 
State-led Center for Strategic Counterterrorism Communications, which 
will serve as the interagency focal point for U.S. Government counter-
radicalization efforts.
    Question. In your view, how do we counter radical ideologies that 
foment violence?
    Answer. The most effective counter will be within the affected 
population and the radical groups themselves.
    Question. What do you understand to be the role of the Intelligence 
Community, as opposed to DOD and the State Department?
    Answer. The Intelligence Community has special authorities and 
capabilities that can be brought to bear. Intelligence collection and 
analysis informs all IOs.
    Question. If confirmed, how would you plan to utilize the results 
of research being conducted by DOD's Minerva and Human Social Cultural 
Behavioral Modeling programs?
    Answer. Research from the Minerva program and the applications 
developed as part of Human Social Cultural Behavioral (HSCB) Modeling 
program are components of the overall Defense Intelligence effort to 
improve socio-cultural information. As currently envisioned by OUSD(I), 
the socio-cultural analytic effort will integrate social science 
research, all-source analysis, and regional expertise into fused 
intelligence products. The modeling capabilities in HSCB will help 
analysts manage and visualize large volumes of data on economics, 
infrastructure, demographics, et cetera. Insights developed as a result 
of enhanced capabilities could also improve the Intelligence 
Community's ability to provide warning on emerging crises.

                         INFORMATION OPERATIONS

    Question. IOs, as currently defined by DOD, include electronic 
warfare, operational security, computer network operations, 
psychological operations, and military deception--each of these lines 
of operations is unique and complex, and, in some cases, interwoven.
    What do you understand to be the roles of the OUSD(I) in overseeing 
DOD IOs?
    Answer. The roles and missions for IOs are being addressed by a 
Front End Assessment. I would expect that the OUSD(I) will continue to 
play an appropriate role in the oversight of several of these areas.
    Question. What are your views on the roles assigned to USD(I) and 
the Under Secretary of Defense for Policy with respect to IOs, and 
particularly offensive computer network operations? If confirmed, what 
changes, if any, would you consider recommending to the Secretary of 
Defense?
    Answer. The Front End Assessment is addressing this question. Some 
aspects of IO, as currently defined, will likely migrate to Policy, 
while others will likely remain in USD(I). I would expect that the 
USD(I) will continue to play an important role in overseeing computer 
network operations.
    Question. Given the formation of a separate U.S. Cyber Command, 
what are your views on retaining computer network operations as a core 
competency with IOs?
    Answer. IOs, as currently defined, refer to the integration of 
various information activities to achieve effects across the 
information environment, which includes the cyber domain. The formation 
of U.S. Cyber Command will not change the relationship of computer 
network operations to the other capabilities necessary for DOD to 
conduct information and cyber-related operations. It will, however, 
enhance our ability to conduct IOs in the cyber domain. As noted above, 
oversight of IO and its components, as currently defined, is being 
addressed in a Front End Assessment.

                         COUNTER THREAT FINANCE

    Question. A number of officials in DOD and the Intelligence 
Community have called for applying significantly more resources and 
attention to identifying, tracking, and halting the flow of money 
associated with the terrorist networks and the illegal narcotics trade. 
Comparable efforts have been undertaken by the Joint Improvised 
Explosive Device Defeat Organization against the flow of money and 
components supporting the construction and employment of improvised 
explosive devices.
    What are your views on efforts to invest additional resources into 
identifying and tracking the flow of money associated with terrorism 
and narcotics, especially in Afghanistan?
    Answer. Engaging all U.S. Government tools to track and halt the 
flow of money associated with terrorist networks, the illegal narcotics 
trade, and other threats to the U.S. Government is critical. The narco-
insurgent nexus is a key enabler, for example, of the insurgency in 
Afghanistan. While DOD is not the U.S. Government lead in counter 
threat finance (CTF), it does have a role to play. We are in the 
process of building an appropriate CTF capability within DOD, and will 
be alert to the need for additional resources.
    Question. As ASD(SO/LIC&IC), you were responsible for a portion of 
the CTF duties in the Department. What is your assessment of DOD's 
current CTF organizational structure?
    Answer. DOD's threat finance structure is still developing, but it 
is headed in the right direction. In August 2009, Deputy Secretary Lynn 
approved the DOD Directive on CTF Policy, which formalizes CTF as a DOD 
mission. CTF Interagency Task Forces are making important contributions 
to our counterinsurgency efforts in Afghanistan. A critical element of 
success in the CTF area will be DOD's ability to support the Department 
of Treasury, which has the CTF lead for the U.S. Government. The ODNI 
is also working to strengthen the Treasury Department's capabilities 
with respect to CTF intelligence.

                          INFORMATION SHARING

    Question. There are still strong barriers to sharing, or allowing 
access to, the mass of raw intelligence data that has not been included 
in finished reports or analyses and approved for dissemination within 
the Intelligence Community. As long as these barriers exist, DNI 
Clapper's vision of an integrated repository with analytic tools able 
to connect-the-dots cannot be achieved. The implication is that the 
Nation will remain more vulnerable to terrorist attacks than it could 
be. The reasons cited to justify these information access barriers are 
the need to protect sources and methods and the privacy of U.S. 
persons.
    What are your views about whether it is possible to provide greater 
access to counterterrorism data to analysts and Special Forces while 
adequately protecting intelligence sources and properly minimizing 
exposure of U.S. persons' information?
    Answer. I believe it is possible to provide greater access to 
counterterrorism data to analysts and Special Forces while adequately 
protecting intelligence sources and properly minimizing exposure of 
U.S. persons' information. While cognizant of the problem we face with 
respect to the unauthorized disclosure of classified information, if 
confirmed, I will seek, in concert with the DNI, to enable better, 
faster, and deeper sharing of counterterrorism data. We have already 
made significant progress in this area. Until very recently, multiple 
U.S. military, civil, and coalition networks in Afghanistan were unable 
to communicate with one another. We have moved to a common, integrated 
network--the Afghan Mission Network--and one common database--Combined 
Information Data Network Exchange--that supports intelligence, military 
operations, command and control, and logistics across all U.S. entities 
and 46 partner nations. This approach of establishing a common network 
and common database has allowed us to ensure that all releasable 
national, tactical, and commercially available data from across the DOD 
and IC is available and discoverable.
    Question. Do you agree with DNI Clapper that these barriers are 
mainly cultural in nature?
    Answer. Yes, I agree with the DNI. Reflecting upon my own 
operational experiences and the intelligence support I have received 
over the years, it is clear that the IC has produced multiple 
generations of intelligence analysts and leaders inculcated with the 
philosophy that need-to-know had to be proven before information could 
be shared. Under that approach, the first and foremost rule was to 
protect sources and methods, or the result would be loss of sensitive 
capabilities and lives. While protecting sources and methods must 
remain a critical concern and need-to-share cannot trump need-to-know, 
there can be an even greater risk to mission or potential loss of life 
if information is not shared between government agencies and with our 
allies. As USD(I), Mr. Clapper initiated and, if confirmed, I will 
continue to foster policy changes and make investments in training and 
capability development that will make Responsibility-to-Provide the 
mindset for the entire DOD enterprise. This is already underway in our 
schoolhouses where Write-for-Release is part of the curriculum, and in 
our acquisition programs where federated information sharing via common 
protocols is an integral part of all fielding efforts at the enterprise 
intelligence architecture level, the combatant commands and the 
military departments.
    Question. What role do you expect to play in addressing this issue, 
if confirmed, to be USD(I)?
    Answer. If confirmed, I will work closely with the ODNI to ensure 
that as we build out our information-sharing capability, we do it in 
full synchronization with the IC. I will also ensure that we have 
appropriate controls in place to prevent unauthorized disclosure of 
information.

                            HOMELAND DEFENSE

    Question. With the establishment of the positions of USD(I), the 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs, and the Commander of U.S. Northern Command, DOD has 
been fundamentally reorganized to better address the critical homeland 
defense mission.
    In your view, what challenges lie ahead in integrating the 
intelligence capabilities of DOD with those of the Department of 
Homeland Security and other associated Federal, State, and local 
agencies?
    Answer. Two of the longstanding challenges to integrating the 
intelligence capabilities of DOD with those of the Department of 
Homeland Security and other associated Federal, State, and local 
agencies have been IT compatibility and guidance on sharing classified 
information. With the issuance of Executive Order 13549, Classified 
National Security Information Program for State, Local, Tribal, and 
Private Sector (SLTPS) Entities, we have made significant progress in 
the latter. The Executive Order establishes the right balance between 
sharing classified information with SLTPS entities in support of 
homeland defense, while ensuring proper safeguards are in place for 
protecting information from unauthorized disclosure. OUSD(I) is 
currently assisting DHS and other agencies in the development of 
implementation policy, and will have an ongoing role in supporting an 
integrated approach.
    Question. Does DOD's existing requirements-setting process 
adequately support the establishment of intelligence requirements for 
the homeland defense mission?
    Answer. The technical solutions needed to inject homeland defense 
intelligence requirements into the overall DOD requirements-setting 
process now exist or are in development. Dividing finite resources 
among existing DOD intelligence requirements, while ensuring adequate 
support for requirements unique to the homeland defense mission, will 
present a significant challenge. Adequate intelligence support must be 
provided, however. Al Qaeda continues to pose a grave threat to the 
American Homeland, and for at least a decade, intelligence 
professionals have recognized that the foreign-domestic divide has been 
shattered by transnational terrorist groups.

                        EFFECTIVENESS OF USD(I)

    Question. The Secretary of Defense took the extraordinary step of 
establishing an independent ISR Task Force in early 2008 to rectify 
major shortfalls in support to ongoing military and counterterrorism 
operations. The Secretary determined that the Military Services had not 
sufficiently deployed innovative solutions to meet the requirements of 
combatant commanders. Responsibility for this problem lay not only with 
the Military Services but also the functional manager for 
intelligence--the Office of the Under Secretary of Defense for 
Intelligence (OUSD(I)).
    Do you believe that the Secretary's initiative suggests that the 
OUSD(I) lacks expertise, initiative, or clout, or some combination 
thereof, or do you think that other factors prevented appropriate 
action?
    Answer. The ISR Task Force was established by Secretary Gates to 
assess and propose options for maximizing and optimizing deployed ISR 
capabilities in support of operations in Iraq and Afghanistan. It has 
been led by an OUSD(I) Deputy Under Secretary, and is primarily staffed 
by OUSD(I) personnel, though it is also comprised of personnel from 
OSD(AT&L), the Services, Joint Staff, and Combat Support Agencies. The 
establishment of the ISR Task Force does not reflect a unique shortfall 
within OUSD(I). Rather, gaps exist in the ability of the Department to 
quickly meet the urgent near-term needs of our warfighters, 
particularly when facing a rapidly evolving threat. This gap is not 
just confined to ISR or intelligence. The same extraordinary process 
was required, for example, to rapidly procure mine-resistant ambush 
protected vehicles and develop additional counter-IED capabilities for 
Afghanistan. The establishment of the ISR Task Force provided the focus 
and resources necessary to pursue rapid acquisition of ISR assets. Its 
efforts are part of a larger departmental effort to expand and 
institutionalize a rapid acquisition capability led by the USD(AT&L). 
As a result of the ISR Task Force's success, it was determined that 
there is an enduring need for the focus and effectiveness the Task 
Force has brought to integrating ISR systems into Joint Operations. 
Accordingly, the Secretary notified Congress on September 16, 2010, 
that he was institutionalizing the responsibilities of the ISR Task 
Force within the OUSD(I).

              DUAL HAT AS DIRECTOR OF DEFENSE INTELLIGENCE

    Question. In May 2007, Secretary Gates and DNI McConnell signed a 
Memorandum of Agreement designating the USD(I) as the Director of 
Defense Intelligence under the DNI.
    What is your understanding of the authorities and responsibilities 
of this office under the DNI?
    Answer. The position of the Director of Defense Intelligence (DDI) 
was established within the ODNI to assist the DNI in the execution of 
DNI responsibilities for the oversight of Defense intelligence matters. 
As the principal advisor to the DNI and ODNI for defense intelligence, 
the DDI is responsible for requirements, intelligence activities, and 
advice and assistance. This includes:

        <bullet> Overseeing the development of DOD's national 
        intelligence requirements on behalf of the DNI;
        <bullet> Facilitating alignment, coordination, and 
        deconfliction between National and Defense Intelligence 
        activities; and
        <bullet> Advising and assisting the DNI by synchronizing and 
        integrating Defense intelligence functions with other IC 
        elements.

    By creating this dual-hat arrangement, the DDI can exercise 
authority on behalf of the DNI, while the USD(I) exercises authorities 
delegated to him by the Secretary of Defense.
    Question. What is your assessment of the relevance or importance of 
this dual designation, and whether it should be continued?
    Answer. I believe strongly in the DDI/USD(I) dual-hat arrangement, 
and strongly support its continuation. I believe it is the most 
effective way to serve the Defense intelligence needs of both the 
Secretary of Defense and the DNI, and it is a key instrument for 
achieving greater integration of U.S. intelligence. The DDI/USD(I) 
attends all National Intelligence Boards, all DNI Executive Committee 
meetings, and all senior ODNI staff meetings. The DDI/USD(I) meets 
weekly with the DNI in a one-on-one session. A full-time senior liaison 
officer resides in each staff in an effort to enhance communication and 
coordination. If confirmed, I would plan to build on and expand the 
collaboration between the OUSD(I) and ODNI staffs through this 
arrangement.
     usd(i) role in intelligence personnel, acquisition, and policy
    Question. DOD senior leaders include Under Secretaries responsible 
for personnel, policy, and acquisition matters, yet the OUSD(I) 
includes staff with responsibilities for each of these areas as they 
apply to the intelligence mission.
    In your view, should the OUSD(I) staff continue to duplicate the 
functions and resources of these other Under Secretaries? If so, why?
    Answer. I do not view the OUSD(I) staff functions as duplicative, 
but rather complementary. The Intelligence components of the Department 
operate under the authority of the Secretary of Defense in title 10 of 
the U.S.C. In coordination with the Under Secretary of Defense for 
Personnel and Readiness (USD(P&R)), the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)), the Under Secretary 
of Defense for Policy (USD(P)), and the DNI, the OUSD(I) staff provides 
oversight on behalf of the USD(I) to ensure these programs are aligned 
both within the Department and the broader Intelligence Community. The 
USD(I) is uniquely positioned to provide oversight of sensitive DOD 
programs that are integral to the Intelligence Community, including 
those exercised clandestinely, and to ensure that those programs 
complement the activities of the entire Department and the DNI. These 
efforts ensure maximum effectiveness and efficiency of the consolidated 
National Intelligence and Defense Intelligence programs.
    The USD(I) is the Principal Staff Assistant responsible for 
promulgation of intelligence policies within DOD (DODD 5143.01). In 
this capacity, the USD(I) exercises the authorities to ensure efficient 
use of resources for the intelligence mission set. DOD routinely 
interacts with the Intelligence Community, and those interactions 
require special consideration in order to preserve the necessary 
division between national and military intelligence activities. The 
USD(I) provides oversight of training, education, and career 
development for all Defense intelligence personnel. This oversight 
enables the Department to develop a cadre of well rounded and 
experienced intelligence experts and to horizontally integrate existing 
and new capabilities for warfighters. Without this focused oversight, 
the efficiency and effectiveness of the DOD Intelligence Enterprise 
would be put at risk. The Department also has responsibility to provide 
specialized oversight of all Military Intelligence Program funding. 
Congress has recognized the importance of this oversight in the areas 
of acquisition, security, personnel, and resources.
    OUSD(I) provides advice and assistance to OUSD(AT&L) concerning 
acquisition programs and processes that significantly affect Defense 
intelligence, counterintelligence, and security components. 
Additionally, OUSD(I) works closely with OUSD(AT&L) and ODNI on 
programs that are funded by the National Intelligence Program and 
executed in the Department. This advice and assistance is integral to 
OUSD(I)'s Military Intelligence Program oversight and Battlespace 
Awareness Capability Portfolio Management responsibilities.
    Question. What is your understanding and view of the military 
departments' initiatives with respect to their tactical, operational, 
and strategic intelligence collection and analysis force structure and 
technologies?
    Answer. The military departments understand that we are operating 
in a resource-constrained environment, and they are developing 
initiatives and strategies to field comprehensive capabilities 
providing optimized intelligence to full-spectrum operations. If I am 
confirmed as USD(I), they will have my full support. These strategies 
provide a range of investment options to realign and reinvest in 
existing capabilities, while still providing timely, fused, and 
actionable intelligence to the Joint Force. I support the Secretary of 
Defense's effort to maximize production of ISR capabilities in support 
of U.S. forces in combat, as evidenced by the ISR Task Force 
Initiative. If confirmed, I will work with the Intelligence Community, 
the military departments, and the combat support agencies to ensure an 
integrated effort. I will meet with the Service Intelligence Chiefs, 
the Joint Staff J2, the Combat Support Agency Directors, and the 
combatant commands to ensure I have a clear understanding of their 
highest priority initiatives.
    Question. If confirmed, what would be your priorities among these 
initiatives and how would you propose to provide policy and program 
oversight and support them with appropriate resources?
    Answer. If confirmed, my priorities would be nested with the 
Secretary of Defense's Planning Guidance and the DNI's National 
Intelligence Strategy. I would ensure that the initiatives and 
strategies of the military departments were also nested with Secretary 
of Defense priorities, and through my office of Joint and Coalition 
Warfighter Support, would provide the necessary oversight of their 
plans and programs. My top priority is to support our forces engaged in 
combat operations with the best intelligence available. To do that, we 
need to balance our capabilities at the strategic, operational, and 
tactical levels of war. We would improve innovation and pursue 
technological advances in support of information sharing--from policy 
to hardware to analysts; improving collection and exploitation, 
countering current and emerging threats, strengthening 
counterintelligence, and improving our security processes.

                          EFFICIENCIES ISSUES

    Question. The Secretary of Defense has announced his intention to 
eliminate the Office of the Assistant Secretary of Defense for Networks 
and Information Integration (ASD(NII)) and the J-6 from the Joint Staff 
on the grounds that other organizations in the Department perform 
similar functions, particularly the Defense Information Systems Agency 
and U.S. Cyber Command. Similarly, the Department has a number of 
combat support defense agencies that are totally engaged in 
intelligence--such as NSA, DIA, NGA, and NRO. There is also the DNI who 
manages intelligence, including all the national intelligence agencies 
within the Department. Each Military Service has an intelligence chief 
as well. U.S. Cyber Command, U.S. Strategic Command, and each of the 
other combatant commands have major intelligence components and 
missions.
    In your view, does the logic that led to the decision to eliminate 
NII and the J-6 imply that USD(I) and the J-2 should also be eliminated 
in view of the role played by DIA, NSA, NGA, NRO, U.S. Cyber Command, 
and U.S. Strategic Command? Why or why not?
    Answer. The Secretary of Defense is examining the Department's 
intelligence organization, responsibilities, and authorities as part of 
his efficiency effort. That endeavor is ongoing, and at this point the 
Secretary has not made any final decisions. Key members of the OUSD(I) 
staff are participating in the efficiency effort to inform the larger 
efficiency team about the intricacies of the Defense Intelligence 
Enterprise. In my view, there is a radical difference between 
streamlining oversight and management of command, control, and 
communications functions and those of a diverse intelligence 
enterprise. The USD(I), on behalf of the Secretary of Defense, 
coordinates, oversees and orchestrates the multidiscipline components 
of the global Defense Intelligence Enterprise and its interaction with 
the Intelligence Community. I believe the creation of the position of 
USD(I) was a major step forward in the oversight of defense 
intelligence, and that the dual-hatting of USD(I) as the DNI Director 
of Defense Intelligence ensures that Defense Intelligence is fully 
integrated into the U.S. Intelligence Community. I would not support 
its elimination. I likewise believe that the J-2 provides critical 
intelligence support to the Chairman, Joint Chiefs of Staff, the 
Secretary of Defense, the Joint Staff, and the Unified Combatant 
Commands.
    Question. Do you see an opportunity for the elimination of 
redundant layers of bureaucracy and greater efficiency in the operation 
and management of the Defense Intelligence Community, including the 
combatant commands and the Service component commands?
    Answer. The Secretary of Defense initiated an efficiency effort 
that includes the review of the organizations and functions of Defense 
Intelligence Enterprise components to identify overlaps and 
inefficiencies. This effort includes a review of the entire enterprise 
to include the Defense intelligence agencies, Service intelligence 
components, and all of the Combatant Command Joint Intelligence 
Operations Centers. I anticipate that the efficiency effort will 
identify some redundancies, and if confirmed, I will work to carry out 
any decisions made by the Secretary.

              NATIONAL INTELLIGENCE PROGRAM CONSOLIDATION

    Question. The Intelligence Reform and Terrorism Prevention Act of 
2004 is the most recent legislative attempt to calibrate the need to 
centralize management of intelligence across the Federal Government 
with the need to sustain the benefits of departmental intelligence 
answerable to cabinet secretaries. General Clapper, while serving as 
USD(I), initiated a proposal to separate out the National Intelligence 
Program (NIP) portion of the Defense budget, establish a new 
appropriations account within the 050 Defense Function, and expand the 
ODNI comptroller function to enable ODNI to execute these funds 
independent of the DOD Comptroller organization.
    Does this proposal weaken the authority of the Secretary of Defense 
over the intelligence components of the DOD?
    Answer. This proposal should not weaken the authority of the 
Secretary of Defense over the intelligence components of DOD. 
Separation of the NIP portion of the Defense budget, as conceptually 
proposed, is an administrative action. Thus, it will not affect the 
Secretary of Defense's ``authority, direction, and control over the 
Department of Defense.'' 10 U.S.C. sec. 113(b). It will not affect how 
the Secretary ``prescribe[s] regulations for the government of his 
department, the conduct of its employees, [and] the distribution and 
performance of its business.'' 5 U.S.C. sec. 301.
    Question. Is this proposal consistent with the Secretary's 
efficiencies initiative, which seeks to avoid duplication and to reduce 
the overhead burden, by creating a second large financial control 
system operating within the Department?
    Answer. The proposal to separate the NIP portion of the Defense 
budget was not intended to be an efficiency initiative, but to provide 
greater visibility and oversight of NIP resources, as well as improve 
NIP financial management practices. ODNI is leading a collaborative 
study effort to determine the feasibility of the conceptual proposal, 
with DOD stakeholders participating. The study team is still assessing 
possible approaches and implications. No final decisions have been made 
on removing the NIP from the DOD budget. If approved, I believe the 
proposal to separate the NIP portion of the Defense budget would not be 
incompatible with the Secretary's efficiencies initiative.

                     SUPPORT FOR COUNTERINSURGENCY

    Question. In late 2009, Major General Michael T. Flynn, USA, who 
was serving as Chief, CJ2, International Security Assistance Force and 
U.S. Forces-Afghanistan, published an article that criticized the 
Intelligence Community broadly for focusing excessively on support for 
kinetic operations against adversary forces in Afghanistan and failing 
to devote sufficient attention to the counterinsurgency strategy and 
its emphasis on population protection, tribal dynamics, cultural 
insight, the rule of law, and the like.
    Do you think that General Flynn's criticism was accurate, and if 
so, has this imbalance been corrected?
    Answer. Major General Flynn was correct in his assessment that in a 
counterinsurgency environment, focusing our intelligence assets solely 
on the insurgent forces is not effective. A comprehensive understanding 
of the socio-cultural environment is absolutely critical to developing 
and implementing effective strategies to separate the insurgency from 
any viable base of support in the general population. Developing this 
comprehensive understanding is clearly an intelligence responsibility 
as laid out in Service and Joint doctrine within the Department. 
Mobilizing the local population in rural areas for village stability 
operations has become a critical element of our strategy in 
Afghanistan, one that is already showing major gains on the 
battlefield. Tribal engagement is increasingly central to U.S. strategy 
in other countries as well. Thus, a detailed understanding of tribal 
dynamics is a critical intelligence task, and will likely remain so for 
the foreseeable future.
    The Intelligence Community has worked hard to implement Major 
General Flynn's recommendations. The Stability Operations Information 
Centers he called for have been created and manned by the Defense 
Intelligence Agency and Service intelligence analysts who are doing the 
integration and analysis work necessary to generate the comprehensive 
District Assessment reports that were the cornerstone of Major General 
Flynn's approach. Significant challenges remain in developing the 
integrated information-sharing environment envisioned by Major General 
Flynn, but the Intelligence, Surveillance, and Reconnaissance (ISR) 
Task Force and the U.S. Central Command have been doing tremendous work 
in this area as well. Additionally, the former USD(I) commissioned the 
Intelligence Task Force of the Defense Science Board in March 2010 to 
evaluate how intelligence can most effectively support 
counterinsurgency operations. The Board is currently compiling its 
findings and recommendations and is scheduled to brief the results in 
the first quarter of calendar year 2011.
    I believe the Intelligence Community has responded well to the 
challenges laid out by Major General Flynn. One of my first actions, if 
confirmed, will be to confer with Brigadier General Fogarty, who has 
replaced Major General Flynn, to get his assessment of the support 
currently being provided by the Defense Intelligence Enterprise and the 
Intelligence Community to determine if additional enhancements are 
required.
    Question. In your opinion, has the Intelligence Community devoted 
enough resources to provide policymakers and combatant commanders with 
the information on the cultural, social, political, and economic 
dynamics needed to formulate sound strategies for other critical 
regions, like Yemen and Somalia?
    Answer. As noted above, tribal engagement is an increasingly 
critical tool in U.S. irregular warfare strategy. It was central to our 
success in overthrowing the Taliban and al Qaeda in Afghanistan in 
2001, it has been a major factor in our success in Iraq (Anbar 
Awakening), it is again becoming a critical element of our 
counterinsurgency strategy in Afghanistan, and it offers U.S. 
policymakers important options in other countries of concern. 
Information on cultural, social, political, and economic dynamics is 
likewise needed for effective IOs, as well as enhanced options to deal 
with power brokers in urban areas. I believe we have made good progress 
regarding intelligence support in this area, but additional 
improvements are required. A key part of the required investment is the 
development of operators--within both the intelligence and the special 
operations communities--with the requisite language skills. 
Effectiveness in this area also requires intelligence analysts with 
very different backgrounds. If confirmed, I would engage the DNI, the 
Director of CIA, the relevant components of the Defense Intelligence 
Enterprise, and the Commander of SOCOM to ensure that we continue to 
develop the required capabilities.
    Question. Is collection and analysis on these subjects in these 
geographical areas a tier one priority for the Intelligence Community 
or is it classified as lower-priority general background intelligence 
information? Do you agree with this prioritization?
    Answer. As the committee is aware, our National Intelligence 
Priorities are classified. As noted above, however, intelligence 
support in this area is increasingly central to effective strategy and 
operations. If confirmed, I will work to ensure that it is accorded 
appropriate priority within both the Intelligence Community and the 
Defense Intelligence Enterprise.

               NEED FOR INDEPENDENT INTELLIGENCE ANALYSIS

    Question. Intelligence analysis should be independent and free of 
political pressure that it reach a certain conclusion, including a 
conclusion that fits a particular policy preference.
    If confirmed, how would you ensure that all intelligence analysts 
within DOD, including those who may be seconded to offices that are not 
part of the defense intelligence structure, are free from such 
pressure?
    Answer. In my experience, I have found the intelligence analysis 
that holds up best under scrutiny are those assessments that were 
reached impartially and independently, using all sources of information 
available, and which highlight the intelligence gaps that limit the 
judgments that can be reached by current analysis. Intelligence 
analysts are inculcated with the importance of ``speaking truth to 
power.'' As ASD(SO/LIC&IC), I have interacted regularly with 
intelligence analysts across the Intelligence Community, and have found 
them to be professionals who apply rigorous tradecraft standards to 
their products. The quality of analysis provided to policymakers today, 
in my judgment, is substantially better than it was in the Cold War. I 
have spoken to analysts as they attend their career training programs 
about the importance of what they do, and the need for objectivity and 
independence. If confirmed, I would reaffirm the importance of 
objective and independent analysis from the frontline analyst, to the 
Directors of analytical organizations, to senior policymakers. There 
will be zero tolerance for political pressure on analysts to reach 
certain conclusions.
    Question. Under what circumstances, if any, do you think 
intelligence officers and analysts should be able to testify to 
Congress on their professional conclusions regarding a substantive 
intelligence issue even if those views conflict with administration 
positions?
    Answer. If Congress requires testimony on a substantive 
intelligence issue, it should be provided, whether or not it conflicts 
with an administration position.

              CONTROL OF INTELLIGENCE AGENCIES WITHIN DOD

    Question. The Intelligence Reform and Terrorism Prevention Act 
(IRTPA) of 2004 granted the DNI control over the preparation and 
execution of the National Intelligence Program budget and tasking of 
national intelligence operations. However, IRTPA also contained 
language asserting that nothing in the act should be construed so as to 
impair the authorities of secretaries of cabinet departments, and the 
Secretary of Defense has delegated ``direction, control, and 
authority''--the highest form of authority in the executive branch--
over the national intelligence organizations within the DOD to the 
USD(I).
    What are your views on the balance of authorities accorded in IRTPA 
to the DNI and to cabinet secretaries, particularly the Secretary of 
Defense?
    Answer. IRTPA struck a proper balance of authorities, in my view, 
in that it gave the DNI strong authority over core intelligence 
functions for the National Intelligence Program, such as setting 
requirements and budgets, as well as determining priorities for and 
managing the analysis and dissemination of national intelligence, while 
leaving the responsibility for execution of DOD intelligence activities 
to the Secretary of Defense, and assigning primary responsibility for 
leadership and management functions such as inspector general 
activities, personnel, information technology, financial management 
systems, and acquisition within the IC elements outside of ODNI and CIA 
to the heads of the departments in which those elements are located. 
The recently-enacted Intelligence Authorization Act for Fiscal Year 
2010 significantly increased the authorities of ODNI over leadership 
and management functions in the IC elements, and I expect that DOD and 
the DNI will together devote considerable time and attention to 
implementing these new ODNI authorities in a manner that gives full 
effect to the act while avoiding unnecessary duplication of effort and 
preserving the Secretary of Defense's ability to execute his statutory 
responsibilities over DOD's intelligence components.
    Question. What are your views on the extent of the grant of 
``direction, control, and authority'' to the USD(I) over DOD national 
intelligence organizations?
    Answer. Statutory provisions in both title 10 and title 50 of the 
U.S.C. assign authority, direction, and control to the Secretary of 
Defense over DIA, NSA, NGA, and NRO as components of the Department, 
consistent with the statutory authorities of the DNI. In my view, this 
balance of authorities is appropriate.
    Question. What type of relationship would you strive to establish, 
if you are confirmed, with the DNI to ensure that DOD interests in 
national intelligence are satisfied, that DOD adequately assists the 
DNI in discharging his responsibilities, and that the defense 
intelligence agencies are properly managed?
    Answer. With the former USD(I) now in place as the DNI, with his 
extensive experience in both DOD and the Intelligence Community, with 
the close personal partnership we have forged during my tenure as 
ASD(SO/LIC&IC), and with the close relationships we both have with the 
Secretary of Defense and with the leaders of the Intelligence 
Community, I believe there is an unprecedented opportunity to further 
strengthen the relationship between DOD and the DNI. If confirmed, I 
expect that together we will look for additional ways to build on the 
arrangement established by the Secretary of Defense and the DNI under 
which the USD(I) serves as the Director of Defense Intelligence within 
ODNI.
    Question. Do you believe that the relationships, authorities, 
processes, and structures in place between the DOD and the DNI provide 
sufficient influence for the DOD to ensure that the intelligence 
capabilities DOD will need in the future to prepare for and conduct 
military operations will be developed and acquired through the National 
Intelligence Program?
    Answer. Yes, I believe that current relationships, authorities, 
processes, and structures in place between DOD and the DNI have 
produced highly effective support by NIP resources for military 
operations.

                    ROLE IN ACQUIRING SPACE SYSTEMS

    Question. If confirmed, what role do you anticipate you would have 
in the requirements process for, and in oversight of the acquisition 
of, space systems, including space systems for which milestone decision 
authority rests with either the Under Secretary of Defense for 
Acquisition, Technology, and Logistics or the DOD Executive Agent for 
Space?
    Answer. If confirmed as USD(I), as the principal staff assistant to 
the Secretary of Defense for all intelligence matters, my role in space 
system acquisition will be to ensure the Defense Intelligence 
Enterprise meets national and Department requirements. I will ensure 
that we've balanced our investments towards delivering the right mix of 
intelligence capabilities to support the combatant commanders to 
accomplish their missions. DOD space systems are one component of a 
broader architecture of sensors, systems, and capabilities.
    As the DOD Program Executive for the Military Intelligence Program 
(MIP), the USD(I) role is to ensure all parts of the ISR architecture, 
to include space, air, and ground, are integrated into an overall 
architecture optimized to meet the warfighters' needs. If confirmed, I 
will work closely with the DNI to ensure that the DOD intelligence 
architecture, including space intelligence capabilities, is integrated 
with the national architecture, and that we have a mission-focused 
space enterprise that is affordable, responsive, efficient, flexible, 
and fully supportive of military operations and national security 
needs.
    As the Battlespace Awareness Capability Portfolio Manager, if 
confirmed, I will participate in the Office of the Secretary of Defense 
(OSD) requirements and acquisition oversight process by providing 
intelligence input into the Joint Capabilities Integration and 
Development System (JCIDS) requirements process, the Functional 
Capabilities Board (FCB), the Joint Capabilities Board (JCB), and the 
Joint Requirements Oversight Council (JROC), as well as provide input 
into the DOD acquisition process on the Defense Acquisition Board.

                 DOD INTELLIGENCE INTERROGATIONS POLICY

    Question. DOD Directive Number 3115.09 assigns the USD(I) 
responsibility for providing oversight of intelligence operations, 
detainee debriefings, and tactical questioning, and ensuring overall 
development, coordination, approval, and promulgation of DOD policies 
and implementation of plans related to intelligence interrogations, 
detainee debriefings, and tactical questioning.
    Do you support the policy set forth in the July 7, 2006, memorandum 
issued by Deputy Secretary of Defense England stating that all relevant 
DOD directives, regulations, policies, practices, and procedures must 
fully comply with Common Article 3 of the Geneva Conventions?
    Answer. Yes, I fully support this policy.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, I fully support these standards.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. If confirmed, I will ensure that all relevant DOD policies 
and plans comply with applicable U.S. law and international 
obligations, including Common Article 3.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes, I strongly hold the view that the manner in which the 
United States treats detainees may well impact how captured U.S. 
soldiers, sailors, airmen, and marines are treated in future conflicts. 
I believe it has broader national security and foreign policy 
ramifications as well.
    Question. Under DOD Directive Number 3115.09, the USD(I) is 
responsible for developing policies and procedures, in coordination 
with the Under Secretary of Defense for Acquisition, Technology, and 
Logistics, the DOD General Counsel, and the appropriate DOD components, 
to ensure that all contracts in support of intelligence interrogation 
operations include the obligation to comply with the standards of DOD 
Directive Number 3115.09 and exclude performance of inherently 
governmental functions in accordance with DOD Directive 1100.4 and that 
all contractor employees are properly trained.
    What do you believe is the proper role of contractors in 
intelligence interrogation operations?
    Answer. Consistent with Section 1038 of Public Law 111-84, ``The 
National Defense Authorization Act for Fiscal Year 2010,'' October 28, 
2009, I believe that in areas where adequate security is available and 
is expected to continue, contractor personnel with proper training and 
security clearances may be used as linguists, interpreters, report 
writers, information technology technicians, and other employees 
filling ancillary positions (including as trainers of, and advisors to, 
interrogators) in the interrogation of individuals who are in the 
custody or under the effective control of DOD or otherwise under 
detention in a DOD facilities.
    Contractors may be used as interrogators only if the Secretary of 
Defense determines that it is in the interests of the national security 
to do so and grants a waiver for a 60-day period, and for an additional 
30 days if a renewal is approved. If a waiver is granted, contract 
interrogators must be properly trained and certified to DOD standards, 
and they must be supervised and closely monitored by properly trained 
and certified DOD military and/or DOD civilian interrogators to ensure 
that the contract interrogators do not deviate from the government-
approved interrogation plans or otherwise perform any inherently 
governmental function.
    Question. What steps would you take, if confirmed, to ensure that 
intelligence interrogation operations are performed in a manner 
consistent with the requirements of the manpower mix and that 
contractors involved in such operations do not perform inherently 
governmental functions?
    Answer. If confirmed, I will ensure that all relevant DOD policies 
and plans comply with Section 1038 of Public Law 111-84, ``The National 
Defense Authorization Act for Fiscal Year 2010,'' October 28, 2009, 
which delineates the functions that contractors may perform in support 
of intelligence interrogations. If the Secretary of Defense grants a 
waiver permitting the use of contractors as interrogators, I will 
ensure that they are properly trained and certified to DOD standards, 
and that they are supervised and closely monitored by properly trained 
and certified DOD military and/or DOD civilian interrogators to make 
certain that the contract interrogators do not deviate from the 
government-approved interrogation plans or otherwise perform any 
inherently governmental function.

         INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE SUPPORT

    Question. Over the last 5 years or so, the approved requirement for 
24-hour orbits of ISR aircraft has grown from approximately 10 to 65. 
U.S. Central Command, and specifically the Iraq and Afghanistan areas 
of operation, has received the overwhelming share of these assets. The 
other combatant commands, as well as such critically important regions 
as Yemen and the Horn of Africa, have received little or no additional 
assets. Even within U.S. Central Command, demand exceeds supply.
    Secretary Gates established the independent ISR Task Force partly 
because the normal requirements and acquisition processes in the 
Department favored long-term investments in capabilities for waging 
conventional military operations rather than the needs of deployed 
forces engaged in irregular warfare.
    In your view, is DOD allocating sufficient resources to airborne 
ISR to protect long-term force modernization preferences?
    Answer. I believe the Department is now allocating sufficient 
resources to airborne ISR. Working closely with Congress, the 
Department has greatly expanded airborne ISR capabilities during 
Secretary Gates' tenure. As ASD(SO/LIC&IC), I have consistently and 
strongly advocated for additional Predator/Reaper CAPs (orbits). These 
assets are absolutely critical to U.S. strategy in several areas, and 
demand continues to exceed supply. This is why in the 2010 Quadrennial 
Defense Review, the Secretary made the decision to expand the 
authorized U.S. Air Force force structure goal further by another 15 
CAPs/orbits (from 50 to 65). We continue to upgrade the capabilities of 
our airborne ISR systems as well. The introduction of high definition 
video capabilities, for example, provides resolution that was not 
possible just 5 years ago. Combining this capability with recently 
developed SIGINT capabilities has dramatically improved the 
effectiveness of our ISR orbits. Other airborne ISR systems are having 
an equally dramatic impact on the battlefield.
    The Secretary has provided very clear guidance. His first defense 
strategy objective is to ``Prevail in Today's Wars,'' and that is where 
the preponderance of our attention and effort is focused. His strategy 
also makes it clear that we must continue to ``Prevent Future 
Conflict'' and ``Prepare to Succeed in a Wide Range of Contingencies.'' 
Maintaining an appropriate balance between winning today and preparing 
for the future requires tough choices, but they are being made. The 
President's budget for 2011 has the balance right, in my view.
    Question. Is the current focus an appropriate one?
    Answer. Yes.

   REPORTING OF CYBER OPERATIONS IN THE CLANDESTINE QUARTERLY REPORT

    Question. The USD(I) coordinates preparation of the quarterly 
report on clandestine military operations (Clandestine Quarterly 
Report) to Congress. In discussions with the Department about actions 
to establish the U.S. Cyber Command, it became apparent that the 
Department may have failed to report certain cyber activities in the 
Quarterly Report that should have been included, since they would 
legitimately fit the accepted definition of clandestine military 
activities.
    What is your understanding of whether the Department failed to 
report these activities in the regular Clandestine Quarterly Reports, 
and why?
    Answer. It is my understanding that the congressional language 
directing provision of the Clandestine Quarterly Report specifically 
calls for reporting on clandestine HUMINT activity. Former USD(I) 
Clapper, in an effort to keep Congress better apprised of activities 
within his purview, expanded the report to routinely include a wide 
range of activities that exceeded the congressional reporting 
requirements. I fully support this expanded approach, and, if 
confirmed, will review the status and process for reporting DOD cyber 
activities. I am committed to appropriate reporting of all intelligence 
and intelligence-related activities to Congress.
    Question. Setting aside the issue of advance notice of certain 
significant cyber activities, what is your view on the appropriateness 
of reporting cyber activities that fit the definition of a clandestine 
military operation in the Clandestine Quarterly Report?
    Answer. The USD(I) is charged with keeping the appropriate 
committees of Congress fully and currently informed on all DOD 
intelligence and intelligence related activities. It would be my 
intent, if confirmed, to fully comply with that responsibility, to 
include cyber activities.

                         SCIENCE AND TECHNOLOGY

    Question. What technical challenges does the Intelligence Community 
face that in your opinion are currently not being addressed adequately 
by DOD science and technology efforts?
    Answer. I believe an ``Intelligence Revolution'' has been underway 
for some time, and that technological change is the principal driver of 
this revolution. This revolution has already posed, and will continue 
to pose, significant challenges as well as opportunities for the U.S. 
Intelligence Community. I believe that DOD science and technology 
programs are enabling the IC to keep ahead of the rapidly-changing 
intelligence environment.
    One challenge that we continue to face is making the best use of 
existing and planned sensors and then exploiting data coming from those 
sensors. Although we are continuing to push the envelope on new and 
better sensing technologies, the real challenge has shifted towards 
integrating data from platforms and sensors into a common framework. 
Related technical challenges include layering the data, developing 
advanced analytical tools that make sense of the data, and developing 
tools that automatically alert analysts or cross-cue other sensors to 
focus on unique and potentially dangerous activity. Other challenges 
include the protection of critical space systems and data networks.
    Question. Recently, DOD has been exploring a wide range of airship-
related technologies for ISR purposes, including those for long-
duration, high-altitude flight.
    What are your views on the specific missions, concepts of 
operation, technical viability, and affordability of airships as long-
duration, high altitude ISR sensor platforms?
    Answer. I believe these technologies will have an immediate, 
positive impact on our operations in Afghanistan, and could play an 
even greater role in future operations as the capability continues to 
evolve. An ``unblinking eye and ear'' is central to our ISR strategy 
for the modern battlefield. Over the last decade, the Department has 
significantly expanded our ability to dwell over the battlefield with 
ISR platforms. We have done this predominantly through procurement of 
aircraft systems and sensors. With the advent of long-endurance 
platforms, the Department is expanding the paradigm of battlefield 
dwell by developing ``game-changing'' persistent capabilities that 
enable satellite-like endurance at a much lower cost and have the 
flexibility to reposition anywhere in the world. These developments 
will greatly increase the amount of valuable information available to 
the warfighter. The development of long-endurance airborne 
capabilities, I would add, is much broader than just airships. DOD is 
also pursuing other long-endurance fixed-wing medium- and high-altitude 
capabilities that can linger for weeks and even months at a time.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(I)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                           WIKILEAKS REMEDIES

    1. Senator Levin. Secretary Vickers, the imperative after September 
11 was a paradigm shift from ``need-to-know'' to ``need-to-share'' 
intelligence and law enforcement information. The Wikileaks fiasco 
illustrates some of the dangers that can accompany information-sharing 
practices that are not wisely structured. It seems to me that we have 
to be smart about this. We can't go back to the old practice of 
hoarding information, but we also cannot be wantonly posting sensitive 
material to hundreds of thousands of people who have no reason to see 
it. The committee is examining technologies and processes to achieve 
this balance, and I know that Secretary Gates and his staff have 
already taken actions and are engaged in longer-term planning. What are 
your views on how we can finally achieve our information-sharing goals 
while better protecting information from insider threats?
    Secretary Vickers. The Department of Defense (DOD) works to manage 
the risk of unauthorized disclosure of classified information through 
good security practices. For example, we vet our personnel for 
suitability and trustworthiness in the security clearance process. We 
establish and uphold rules for physical access to secure facilities and 
to classified information. We also have rules about the use of 
networked systems and conduct annual training to educate and remind 
employees about the rules. Security policy and processes are generally 
effective deterrents when everyone understands and implements them.
    The unauthorized transfer of classified information to WikiLeaks 
was made possible in part because standard security procedures were 
relaxed in a war zone in order to facilitate the rapid exchange of 
information critical to operations. In the aftermath of WikiLeaks, the 
Department is taking a number of mitigation steps, including possible 
disciplinary action. We are examining technologies that would improve 
our ability to identify and thwart a threat from inside the Department 
as well as strengthen information-sharing governance. Some actions were 
already under way before the WikiLeaks disclosures. For example, the 
Department has planned and resourced the development of a public key 
infrastructure that would authenticate users of the Secret Internet 
Protocol Router Network (SIPRNet) so we would know exactly who is on 
the SIPRNet at any given time. Technical subject matter experts in the 
office of the DOD Chief Information Officer (CIO) are also reviewing 
options for developing role-based or attribute-based access control 
capabilities that would more effectively control who has access to what 
data--a very large and complex task given the Department's size and the 
scope of its responsibilities.
    To summarize, we can and must responsibly balance information 
security and information sharing by managing risk using a number of 
security and security-related protocols that act together to thwart 
both intentional and unintentional violations.

    2. Senator Levin. Secretary Vickers, in your answers to the 
committee's advance policy questions, you stated that the office of the 
Under Secretary of Defense for Intelligence (USD(I)) had recently 
completed a comprehensive review. What are the main recommendations of 
that review, and will you make it available to the committee?
    Secretary Vickers. Immediately following the WikiLeaks disclosures, 
the Secretary of Defense directed the USD(I), in concert with the Joint 
Staff and the DOD CIO, to review DOD information security policy and 
procedures for handling classified information in forward-deployed 
areas. The Secretary was particularly concerned over the appropriate 
balance between the need to share and the responsibility to safeguard 
classified information. The report was completed and provided to the 
Secretary in December 2010. The report itself is an internal DOD 
deliberative document, but some of the principal findings include the 
following:

        <bullet> Adequate security policy and procedures exist, but 
        compliance must be better enforced. Forward-deployed units 
        maintained an over-reliance on removable electronic storage 
        media.
        <bullet> Roles and responsibilities for detecting and dealing 
        with an insider threat must be better defined.
        <bullet> Processes for reporting security incidents need 
        improvement.
        <bullet> Limited capability currently exists to detect and 
        monitor anomalous behavior on classified computer networks.

    USD(I) Security staff will continue to work closely with the DOD 
CIO, elements of the Joint Staff and U.S. Cyber Command to address 
these issues in the months ahead. We stand ready to provide the 
committee with further details on the report's main recommendations, if 
requested.

                          INFORMATION SHARING

    3. Senator Levin. Secretary Vickers, on a closely related topic, 
since September 11 the intelligence, law enforcement, and homeland 
security communities have struggled to develop effective means to 
connect and correlate fragmentary information held by multiple 
departments and agencies to thwart terrorist threats. As we learned in 
the aftermath of the Christmas bombing attempt, achieving this so-
called connect-the-dots capability is not so much a technical 
challenge; the hardest part is overcoming the resistance of agencies to 
sharing their sensitive information and resolving the important policy 
and legal concerns regarding protection of privacy and sources and 
methods.
    This challenge of finding and correlating the proverbial needles in 
haystacks is not confined to the national-level threat from terrorism. 
It turns out that our troops face identical types of challenges in 
discovering the people and networks of the terrorist and insurgent 
groups they are fighting in Iraq, Afghanistan, Yemen, and elsewhere 
around the world.
    The committee's examination of this situation reveals that almost 
every agency and department is developing large-scale search, 
discovery, and correlation systems, but they are able to apply these 
tools only to their own data--in their own stovepipes. In other words, 
there is a lot of duplication going on but no interagency solution. 
Indeed, there is no enterprise-wide search capability even within DOD. 
Do you have an appreciation of this situation, and how do you think it 
can be fixed, both within DOD and throughout the Government?
    Secretary Vickers. Many DOD and Intelligence Community 
organizations have leaned forward to provide improved and impressive 
services rapidly for our troops in Iraq and Afghanistan. This challenge 
has been increased significantly by the breadth of our modern 
coalitions, by the need to update intelligence disclosure and release 
policies, and by the need for technology solutions to assist in marking 
data for release and moving it down to non-traditional networks to 
support coalition operations. We expect this trend to continue in 
future contingency operations. I share your view that there is a need 
to better coordinate and integrate these various contingency efforts, 
and we are addressing this challenge aggressively in numerous ways.
    The Information Sharing and Collaboration (ISC) Team of the 
Intelligence, Surveillance, and Reconnaissance (ISR) Task Force has, 
over the past year, fielded a number of improvements to intelligence 
architectures in theater and to data dissemination, discovery, access, 
and retrieval capabilities. This group has also been focused on 
identifying gaps, overlaps, and integration opportunities among the 
Quick Response Capabilities delivered to theater, and on ensuring that 
sustainment and upgrade decisions are made within the context of 
integrating duplicative efforts, and migrating capabilities to common 
enterprise standards. The ISC Team is working to ensure these quick-
turn-around efforts are designed and upgraded in ways that increase 
their interoperability across the intelligence enterprise, and that 
these investments will work toward enduring long-term solutions that 
can be applied to global operations and will be reusable in future 
contingency operations. Specific examples of these efforts include: 
ensuring any upgrades or expansion of the CENTCOM's Combined 
Information Data Network Exchange database and search capabilities are 
migrated to global enterprise standards; and a just-initiated review of 
all DOD and Intelligence Community ``cloud'' efforts to highlight gaps, 
overlaps, and an enterprise integration way ahead.
    Yet another important organization is the Intelligence Community's 
Information Sharing Steering Committee (ISSC). DOD participates in the 
ISSC along with representatives from all Intelligence Community 
elements to align common information-sharing needs, priorities, 
solutions, and architectures.
    Our approach to accomplishing improvements in information sharing 
requires that we implement a multi-faceted, layered approach. We 
recognize explicitly that technology alone will not resolve 
information-sharing shortfalls. The need to implement improvements in 
an enterprise approach has led us to develop oversight processes 
designed to effectively manage and synchronize the many information-
sharing initiatives we have underway into one well-orchestrated effort. 
This focus has led to the establishment of a new Information Sharing 
and Partner Engagement Directorate within USD(I). This newly created 
directorate is engaging in a broad range of efforts specifically 
designed to improve information sharing by addressing policy, foreign 
relationship management, enterprise architectures, international 
intelligence sharing architectures and mechanisms, and training and 
education, and is ensuring we place the appropriate high-level of 
attention from the Office of the Secretary of Defense (OSD) on this 
subject. Among its duties, this new Directorate will support a 
governance structure to guide Intelligence Community-wide enterprise 
solutions. It will reconstitute and support the Defense Intelligence 
Information Enterprise (DI\2\E) Council, and will guide and oversee 
development of the associated DI\2\E Framework. A Charter for the new 
DI\2\E Council and Terms of Reference for the DI\2\E Framework have 
both been drafted and are in review.

                   U.S. CYBER COMMAND AND CYBERSPACE

    4. Senator Levin. Secretary Vickers, U.S. Cyber Command's mission 
is to defend networks and, when directed, conduct offensive operations 
in cyberspace. Both of these missions are heavily dependent upon 
intelligence support. From a policy perspective, USD(I) is not 
responsible for the mission of defending cyberspace, nor for offensive 
military operations. Those oversight roles are the province of the CIO 
and the Under Secretary of Defense for Policy (USD(P)).
    However, as we have come to learn, gaining access in cyberspace to 
adversaries' networks to collect intelligence is tantamount to 
establishing a foundation for offensive actions. Thus, the intelligence 
activities that you oversee inherently have a relationship to potential 
offensive military operations. These intelligence operations in 
cyberspace can take on an extraordinarily sensitive cast, since 
adversaries could or likely would interpret a penetration of important 
targets as a potentially hostile act if or when they are discovered. 
How are you planning to monitor cyber intelligence collection 
operations under title 50 authorities and to coordinate with the USD(P) 
and the CIO?
    Secretary Vickers. Because the cyber mission transcends the various 
OSD offices which execute a principal staff advisor role, it is 
imperative that the Office of the Under Secretary of Defense 
(Intelligence) (OUSD(I)) coordinates and consults with these offices in 
order to ensure the integration and synchronization of cyber efforts 
amongst the military and the Intelligence Community to satisfy the 
requirements of the warfighter. USD(I) oversight of any cyber 
intelligence collection operations under title 50 authorities is 
conducted in accordance with applicable laws on reporting requirements 
for intelligence and intelligence-related sensitive activities. 
Oversight is executed in order to promote better cooperation and 
collaboration amongst the Defense Intelligence Enterprise to ensure 
efficient and effective use of our limited resources to achieve the 
Nation's highest priorities in accordance with the National Security 
Strategy, the Defense Intelligence Strategy, and the CIO's priorities.

    5. Senator Levin. Secretary Vickers, are the USD(P) and the CIO 
going to be consulted about sensitive intelligence operations in 
cyberspace?
    Secretary Vickers. As stated in a previous response, USD(I) 
consults and coordinates with USD(P) and CIO on significant 
intelligence and intelligence-related activities in accordance with 
current DOD policy. Because of the sensitivities that such operations 
could have across the Department, it is critical that OUSD(I) 
coordinates and consults with the various OSD offices which execute a 
principal staff advisory role pertaining to the cyber mission such as 
USD(P) and CIO. This close cooperation within the Department and within 
the Intelligence Community has empowered the Defense Intelligence 
Enterprise to support U.S. national objectives while maximizing our 
effectiveness.

    6. Senator Levin. Secretary Vickers, the National Security Strategy 
states that the United States will enhance deterrence in cyberspace by 
``improving our ability to attribute and defeat attacks on our systems 
or supporting infrastructure.'' If confirmed as USD(I), what role will 
you play in identifying an effective deterrence strategy and 
declaratory policy for cyberspace?
    Secretary Vickers. USD(I) is a primary stakeholder in Department-
wide efforts to define an effective deterrence strategy and declaratory 
policy for cyberspace. If confirmed, I will work closely with USD(P) 
and the Chairman of the Joint Chiefs of Staff and will participate in 
National Security Council (NSC)-led fora related to this matter.

    7. Senator Levin. Secretary Vickers, in your view, what are the 
elements of an effective deterrence posture for cyberspace that could 
attribute and defeat attacks?
    Secretary Vickers. An effective deterrence posture is one that 
would deny aggressors any benefit of an attack through a blend of 
diplomatic, informational, military, and economic tools to influence 
behavior.

    8. Senator Levin. Secretary Vickers, are those two elements alone 
really enough to deter attacks, or is it also necessary to have a 
counter-attack component?
    Secretary Vickers. As we define our deterrence strategy, the 
challenge is to make our defense effective enough to deny an aggressor 
the benefit of an attack. In cyberspace, as with other areas, the 
United States reserves the right to respond using the full range of 
diplomatic, economic, and military tools at its disposal. Response to a 
cyber attack, if necessary, does not require a response in like kind.

     INFORMATION OPERATIONS AND STRATEGIC COMMUNICATIONS ACTIVITIES

    9. Senator Levin. Secretary Vickers, in response to the committee's 
advance policy questions, you advocate for a robust DOD presence in 
conducting information operations and strategic communications programs 
more broadly in both theaters of war and globally. According to the 
Government Accountability Office, DOD spends ``hundreds of millions of 
dollars each year'' conducting these operations. This committee and 
Congress have repeatedly questioned DOD's ability to measure the 
effectiveness of the dollars spent supporting these operations. In your 
view, has DOD done enough to explain the measures of effectiveness for 
these programs?
    Secretary Vickers. The rapidly expanding pace of change in the 
information environment made global and instantaneous communications 
possible in ways that were unimaginable just a decade ago. Across the 
globe, our friends and our adversaries are constantly producing and 
consuming information that influences their decisions and their 
actions. Drawing a causal link between a discrete action in today's 
information environment and an individual or group decision is very 
challenging. We continue to place great emphasis on obtaining good 
measures of effectiveness and conducting thorough assessments of all of 
our information operations. Leveraging lessons learned from commercial 
enterprises, academia, and our interagency partners, we have made some 
progress to improve our ability to measure effects in our information 
programs. That said, we must continue to do much more in this area. As 
the information environment continues to evolve and its complexity 
grows, DOD must continue to press for new and innovative ways both to 
communicate with intended audiences and to measure the effects of 
communications and engagements.

    10. Senator Levin. Secretary Vickers, do you believe the programs 
you authorized while you were Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict have had a measurable 
impact?
    Secretary Vickers. Yes, although drawing a causal link between 
discrete acts in today's information environment and an individual or 
group response is very challenging, we continue to refine and improve 
our abilities to measure the impact of our operations. We must continue 
to invest both resources and intellectual energies to meet this 
challenge. Our measurement efforts routinely demonstrate our impact. 
Our COCOM-sponsored websites have ever increasing readership, providing 
frequent and robust feedback. Our small teams supporting embassies 
abroad are lauded both by the U.S. embassies they support and the 
partner nations with whom they interact. Advertising for our rewards 
programs has significantly increased the number and frequency of 
reports of high value targets and terrorist supporting materials.
    As the information environment continues to evolve, and its 
complexity grows, DOD will continue to press for new and innovative 
ways both to communicate with its intended audiences and to measure the 
effects of our communications and engagements.

    11. Senator Levin. Secretary Vickers, in response to the 
committee's advance policy questions, you suggest that DOD's 
information operations and strategic communications programs should 
support more robustly other government departments and agencies in 
countering the message of violent extremists. Given the clear lines of 
authority that each government department and agency are given by 
Congress, how do you foresee DOD increasing its support of the 
Department of State (DOS) and/or the Central Intelligence Agency?
    Secretary Vickers. The purpose of DOD Information Operations is to 
support our military objectives. The global nature of modern 
communications has blurred, however, traditional lines between agency-
specific communications programs, increasing the need for mutual 
reinforcement among them. Messages promulgated by one department or 
agency which might previously have had effects limited to a single 
geographic region or audience now find immediate global resonance. This 
new communications paradigm makes cooperation and collaboration within 
and among the various departments critical to ensure consistency and 
efficacy of the U.S. global message. DOD maintains unique capabilities 
to reach audiences in denied areas or to promulgate information in ways 
that can support our military objectives. Those capabilities can also 
contribute, where appropriate, to the larger U.S. Government 
communications and public diplomacy strategies, in furtherance of U.S. 
national security objectives. We will continue to strive to provide 
transparency of our operations within the interagency environment, but 
more importantly, we will make our capabilities available to support 
other departments and agencies in areas where those capabilities 
provide additional options for effective communications and engagement.

    12. Senator Levin. Secretary Vickers, do you believe DOD has the 
authority for expanded support operations?
    Secretary Vickers. We have the authorities to support where and 
when required. We will continue to leverage long-established processes 
and mechanisms for planning, deconfliction, and partnered efforts to 
enhance mutually supporting objectives with our interagency partners.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall

                              1208 FUNDING

    13. Senator Udall. Secretary Vickers, the committee has expressed 
concern that U.S. Special Operations Command may be using section 1208 
funding, which is intended to support counterterrorism operations, for 
long-term engagement with partner nations. Is this still the case or 
has it been corrected?
    Secretary Vickers. Section 1208 funds must be used for specific 
counterterrorism operations, not long-term engagement. Improved 
reporting procedures and increased coordination with and notifications 
to Congress have helped address past concerns regarding DOD section 
1208 programs. Reviews conducted as part of our annual process by 
Assistant Secretary of Defense for Special Operations/Low-Intensity 
Conflict and Interdependent Capabilities, U.S. Special Operations 
Command, and the Geographic Combatant Commands, have resulted in the 
termination of several operations over the last 3 fiscal years. 
Beginning in 2010, SOLIC&IC began notifying the congressional 
committees with a list of approved continuing operations for the next 
fiscal year, along with any cost estimate changes. This information is 
also provided in the annual report to Congress in accordance with 
section 1208.

                          ZONES OF HOSTILITIES

    14. Senator Udall. Secretary Vickers, in your advance policy 
questions, you state that outside zones of hostilities, DOD plays a 
supporting role in combating terrorism. Does that mean that outside of 
Iraq and Afghanistan, the concurrence of our ambassadors is required?
    Secretary Vickers. We work closely with our DOS and other 
government agency colleagues to support whole-of-government approaches 
to terrorism challenges both inside and outside zones of hostilities. 
When directed by the President and the Secretary of Defense, geographic 
combatant commanders conduct counterterrorism operations in support of 
U.S. Government objectives while ensuring appropriate Chiefs of Mission 
are consulted and kept informed of all U.S. military activities.

    15. Senator Udall. Secretary Vickers, how does DOD define zones of 
hostilities in this context?
    Secretary Vickers. In the context of my response, this term refers 
to Iraq and Afghanistan.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                 INTEGRATING INTELLIGENCE CAPABILITIES

    16. Senator Begich. Secretary Vickers, in your view, what 
challenges will you face in integrating intelligence capabilities of 
DOD with the Department of Homeland Security (DHS) and other Federal, 
State, and local agencies?
    Secretary Vickers. DOD enjoys a very positive relationship with 
DHS. Our commitment to DHS expands far beyond intelligence integration.
    I believe one of our greatest challenges to integrating 
intelligence capabilities between DHS and DOD is the important policy 
and legal balance regarding the protection of privacy rights and civil 
liberties. In fact, this challenge expands beyond the DHS and the DOD 
relationship and is indicative of the greater information-sharing 
issues facing the whole-of-government. The protection of privacy and 
other legal rights of Americans while defending our Homeland is no easy 
task. As we develop solutions, this protection of civil liberties is a 
core principle that must be kept in mind.
    I recognize the imperative for efficient integration between DOD, 
DHS, and other Federal, State, and local agencies and believe 
collaboration is a key driver of effective integration. As such, I am 
in the process of considering a first of its kind Joint Duty Assignment 
of a DHS representative to serve as a full-time liaison between DHS's 
Office of Intelligence and Analysis, State and Local Program Office, 
and the OUSD(I).
    In their mission to detect, prevent, and respond to acts of 
terrorism and weapons of mass destruction, State, local, and tribal 
agencies depend on the relationship between DHS and DOD. This 
relationship literally provides a critical link to actionable 
intelligence information. For example, allowing select State and major 
urban area fusion center personnel with appropriate security clearances 
access to appropriate classified terrorism-related information residing 
on DOD's classified networks is a major step forward. This information 
will contribute significantly to improving their mission processes 
supporting Suspicious Activity Reports and Alerts, Warning, and 
Notifications of potential attacks on our Homeland. This example of a 
joint initiative has bolstered increased collaboration between DHS, 
DOD, and other Federal departments and agencies, enabling the trusted 
and secure exchange of terrorism-related information in order to 
detect, deter, prevent, and respond to Homeland security threats.

    17. Senator Begich. Secretary Vickers, are there steps DOD can take 
to better coordinate its efforts to combat terrorism with other 
agencies?
    Secretary Vickers. DOD extensively coordinates its efforts to 
combat terrorism with the National Security Staff, Chiefs of Mission, 
Chiefs of Station, relevant departments and agencies, and field 
activities to enable the broadest interagency collaboration consistent 
with maintaining the security of our efforts. We recognize that this is 
a constant process that requires regular and routine interface at 
multiple levels within the respective organizations. We have made wide 
use of the ``Joint-Interagency Task Force'' model to bring our 
interagency colleagues into a collaborative planning and execution 
forum, and are always vigilant for ways to share best practices and 
make adjustments to the process.
    It is critically important that DOD's counterterrorism activities 
be fully synchronized and integrated with those of other agencies to 
develop an optimal whole-of-government response to this vital national 
security issue. Nowhere is this need for integration more important 
than in our intelligence and information-sharing activities across the 
entire Intelligence Community. To support this objective, the DOD focal 
point for counterterrorism intelligence, the Defense Intelligence 
Agency's (DIA) Joint Intelligence Task Force for Combating Terrorism, 
has recently assigned a senior representative to work at the National 
Counterterrorism Center (NCTC) as a means of improving coordination 
between Defense and Intelligence Community counterterrorism analytic 
efforts. Finally, as part of the Secretary of Defense Efficiencies 
Initiatives, we have directed DIA to conduct a review of the overall 
Defense relationship with NCTC and develop an appropriate course of 
action and implementation plan to maximize the integration of analytic 
capabilities and information-sharing across the national and defense 
counterterrorism intelligence missions.
                                 ______
                                 
    [The nomination reference of Hon. Michael G. Vickers 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 5, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael Vickers, of Virginia, to be Under Secretary of Defense for 
Intelligence, vice James R. Clapper.
                                 ______
                                 
    [The biographical sketch of Hon. Michael G. Vickers, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

                    Biography of Michael G. Vickers

Education:
        <bullet> Johns Hopkins University, Baltimore, MD (attended 
        Nitze School of Advanced International Studies, Washington, DC)

                <bullet> Doctor of Philosophy, International Relations-
                Strategic Studies
                <bullet> 1991-2010 (non-resident since 1995); degree 
                awarded August 2010

        <bullet> The Wharton School, University of Pennsylvania, 
        Philadelphia, PA

                <bullet> Master of Business Administration
                <bullet> 1986-1988; degree awarded May 1988

        <bullet> University of Alabama, Tuscaloosa, AL

                <bullet> Bachelor of Arts, International Relations
                <bullet> 1980-1983 (New College - External Degree 
                Program); degree awarded June 1983

Employment Record:
        <bullet> Acting Under Secretary of Defense for Intelligence and 
        Assistant Secretary of Defense for Special Operations/Low 
        Intensity Conflict & Interdependent Capabilities

                <bullet> 2011-Present

        <bullet> Assistant Secretary of Defense for Special Operations/
        Low Intensity Conflict & Interdependent Capabilities

                <bullet> 2007-Present

        <bullet> Center for Strategic and Budgetary Assessments

                <bullet> Senior Vice President, Strategic Studies
                <bullet> 1996-2007

        <bullet> Johns Hopkins University, Nitze School of Advanced 
        International Studies

                <bullet> Acting Co-Director, Strategic Studies, and 
                Professorial Lecturer (part-time)
                <bullet> 1996-1997

        <bullet> Department of Defense

                <bullet> Special Government Employee (paid), Defense 
                Science Board Task Force (part-time), 1996
                <bullet> Unpaid member, Defense Science Board Task 
                Force (part-time), 1998, 1999

        <bullet> Independent Consultant

                <bullet> Principal clients: Science Applications 
                International (contract work for the Department of 
                Defense); Defense Budget Project (predecessor 
                organization of the Center for Strategic and Budgetary 
                Assessments)
                <bullet> 1994-1996

        <bullet> Office of Net Assessment, Department of Defense

                <bullet> Strategic Studies Fellow (part-time)
                <bullet> 1993-1994

        <bullet> News America Publishing (New York, NY)

                <bullet> Editor and Managing Director, The Daily 
                Intelligence Brief (start-up)
                <bullet> 1990-1991

        <bullet> BioAutomation, Inc (Bridgeport, PA)

                <bullet> Vice President and Chief Financial Officer 
                (start-up)
                <bullet> 1988-1990

        <bullet> Metallic Ceramic Coatings, Inc. (Bridgeport, PA)

                <bullet> Vice President, Finance and Strategy
                <bullet> 1986-1988; 1992-1994

        <bullet> Central Intelligence Agency

                <bullet> Operations Officer
                <bullet> 1983-1986

        <bullet> U.S. Army

                <bullet> Special Forces Officer (Captain) and 
                Noncommissioned Officer (Staff Sergeant)
                <bullet> 1973-1983

Honors and awards:
        <bullet> Distinguished Member, 1st Special Forces Regiment, 
        U.S. Army (2010)
        <bullet> Alexander Hamilton Fellowship (Smith Richardson 
        Foundation) (1993)
        <bullet> Certification of Distinction, Central Intelligence 
        Agency (1984)
        <bullet> Honors graduate (cum laude), University of Alabama 
        (1983)
        <bullet> Meritorious Service Medal (1976, 1983)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Hon. 
Michael G. Vickers in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871

                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael George Vickers.

    2. Position to which nominated:
    Under Secretary of Defense (Intelligence).

    3. Date of nomination:
    Originally nominated: September 29, 2010; renominated: January 5, 
2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 27, 1953; Burbank, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Melana Zyla Vickers.
    Maiden Name: Melana Kalyna Zyla.

    7. Names and ages of children:
    Alexandra Novakovic Vickers, age 22.
    Natasha Novakovic Vickers, age 19.
    Sophia Novakovic Vickers, age 17.
    Oksana Elizabeth Vickers, age 9.
    Kalyna Cecilia Vickers, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Johns Hopkins University, Baltimore, MD, 1991-2010, Doctor of 
Philosophy, International Relations, degree conferred August 2010.
    University of Pennsylvania, Philadelphia, PA, 1986-1988, Master of 
Business Administration, degree conferred May 1988.
    University of Alabama, Tuscaloosa, AL, 1980-1983. Bachelor of Arts, 
International Relations, degree conferred 1983.
    Hollywood High School, Hollywood, CA, 1968-1971, High School 
diploma.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant Secretary of Defense (Special Operations/Low Intensity 
Conflict and Interdependent Capabilities); 2500 Defense Pentagon, Room 
3C852A; August 3, 2007 to Present (confirmed July 23, 2007).
    Senior Vice President, Strategic Studies, Center for Strategic and 
Budgetary Assessments; 1667 K Street, NW, Suite 900, Washington, DC; 
September 1996 to August 2007.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Classified and unclassified contract consulting work for the 
Department of Defense, 1994 to 2007 while employed by the Center for 
Strategic and Budgetary Assessments (1996 to 2007) and as a self-
employed consultant (1994 to 1996).
    Part-time employment (paid) as a special government employee as a 
member of a Defense Science Board Task Force, 1996; unpaid service as a 
member of Defense Science Board Task Forces, 1998, 1999.
    Operations Officer, Central Intelligence Agency, June 1983 to March 
1986.
    Commissioned Officer, U.S. Army, December 1978 to June 1983.
    Enlisted, U.S. Army, June 1973 to December 1978.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Trustee, Vickers Family Revocable Trust since December 2004; Melana 
Zyla Vickers (wife), co-trustee.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Meritorious Service Medal (U.S. Army); two awards, 1976, 1983.
    Certificate of Distinction, Central Intelligence Agency, 1984.
    Bachelor of Arts, Cum Laude, University of Alabama, 1983.
    Alexander Hamilton Fellowship (Smith Richardson Foundation), 1993.
    Distinguished Member, 1st Special Forces Regiment, U.S. Army, 2010.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    My most recent publication is my Ph.D. dissertation, ``The 
Structure of Military Revolutions'' (Johns Hopkins University, July 
2010), which is available through University Microfilms (UMI).
    I am the author of two book chapters: ``The Revolution in Military 
Affairs and Military Capabilities,'' in Robert Pfaltzgraff and Richard 
Shultz, eds., War in the Information Age (Brassey's, 1997); and 
``Revolution Deferred: Kosovo and the Transformation of War,'' in 
Andrew Bacevich and Eliot Cohen, eds., War Over Kosovo: Politics and 
Strategy in a Global Age (Columbia University Press, 2001).
    I am the author or co-author of five Center for Strategic and 
Budgetary Assessments monographs: ``War in 2020--A Primer'' (1996); 
``The Military Revolution and Intrastate Conflict'' (1997); ``The 
Quadrennial Defense Review: An Assessment'' (1997); ``Strategy for a 
Long Peace'' (2001); and ``The Revolution in War'' (2004). I am also 
the author co-author of four CSBA Backgrounders: ``Intelligence Reform 
and the Next CIA Director'' (2004); ``The 2001 Quadrennial Defense 
Review, the Fiscal Year 2003 Defense Budget Request and the Way Ahead 
for Transformation'' (2002); ``The Hart-Rudman Commission Report: A 
Critique'' (2000); and ``Perspectives on the Revolution in Military 
Affairs'' (1996).
    I have had three opinion-editorials published by USA Today: ``For 
Guidance on Iraq, Look to Afghanistan'' (June 2004); ``Will We Heed 
Lessons of War in Kosovo?'' (June 1999); and ``Ground Troops, Yes, But 
Whose?'' (April 1999). I have had one opinion-editorial published by 
the Washington Post: ``Ground War: Doing More With Less'' (April 2003). 
I have had two book reviews published by the Wall Street Journal: ``The 
Destiny of Combat'' (Review of Caspar Weinberger and Peter Schweitzer, 
The Next War, and George and Meredith Friedman, The Future of War, 
March 1997) and ``The Future of Force'' (Review of Frederick Kagan, 
Finding the Target, November 2006). I have had one book review 
published by the Journal of Military History: The Making of Strategy: 
Rulers, States, and War, Williamson Murray, MacGregor Knox, and Alvin 
Bernstein, eds. (October 1997). I have also had an article published by 
Armed Forces Journal: ``What the QDR Should Say?'' (2006).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Michael G. Vickers.
    This 12th day of January, 2011.

    [The nomination of Hon. Michael G. Vickers was reported to 
the Senate by Chairman Levin on March 15, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 17, 2011.]
                              ----------                              

    [Prepared questions submitted to Dr. Jo Ann Rooney by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. My broad professional experiences, educational credentials, 
and lifelong commitment to service provide a solid background for me to 
recognize and contribute positively to myriads of formidable challenges 
and tasks facing DOD and, in particular, Personnel and Readiness. 
During my 8 years as president of a doctoral level university, we 
successfully addressed not only difficult financial challenges, 
enabling the institution to realize significant operating surpluses 
after years of deficits, but developed an innovative educational model 
that directly impacted retention, graduation rates, and student 
success. By offering courses in a variety of delivery modalities, 
including blocks sessions, accelerated, low residency, and traditional 
semesters, we were able to deliver a unique, sustainable solution to 
the educational needs of traditional, nontraditional, and graduate 
students while at the same time creating a new business and human 
resource model for the university. My work on the Jewish Hospital Saint 
Mary's Healthcare System Board of Trustees in a leadership role has 
allowed me to be directly involved in developing policies and 
procedures impacting patient care, safety, operating efficiencies, and 
human resource policies across a system encompassing ambulatory, 
community hospitals and tertiary care facilities, an inpatient 
psychiatric hospital, a comprehensive rehabilitation facility, and 
clinical research. My current work as president of Mount Ida College 
and being a member of the Board of Trustees of Regis University have 
given me additional opportunities to lead an organization through a 
period of significant transition and be at the forefront of educational 
innovation. Other corporate and civic engagements have enabled me to 
lead organizations through dynamic structural and financial changes 
enabling them to better serve their constituents. My many years of 
experience outside of post secondary education in tax law, business, 
and finance provide me with a solid foundation and breadth of knowledge 
to deal with complex legal, financial, and policy issues.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Principal Deputy Under Secretary of Defense for Personnel and 
Readiness (P&R)?
    Answer. There are a number of challenges facing P&R to ensure the 
human resource systems for civilian and military personnel, Active and 
Reserve, provide the level of training and high level skills needed to 
support current as well as potential future engagements. This includes 
evaluating and providing appropriate compensation and personnel 
policies commensurate with the skills and sacrifices being made by 
those in service to our country; ensuring quality, world-class health 
care, including mental health support, to ill and injured 
servicemembers; and providing comprehensive support services to 
families of servicemembers. In addition, there needs to be ongoing 
evaluation of current policies and procedures to identify opportunities 
for enhanced efficiencies without impacting service delivery.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Although I do not have specific recommendations at this 
time, if confirmed, I would review the plans currently in place to 
address these challenges and determine what modifications, if any, need 
to be made. I would look for opportunities to enhance communication and 
collaboration with my colleagues throughout DOD to improve 
effectiveness in delivering programs supporting Personnel and 
Readiness.

                                 DUTIES
 
   Question. Section 136a of title 10, U.S.C., provides that the 
Principal Deputy Under Secretary of Defense for Personnel and Readiness 
shall assist the Under Secretary of Defense for Personnel and Readiness 
in the performance of his or her duties.
    Assuming you are confirmed, what duties do you expect to be 
assigned to you?
    Answer. If confirmed, I expect the Secretary of Defense to assign 
me my duties, through the Under Secretary of Defense for Personnel and 
Readiness, functions, and responsibilities currently mandated by law 
and specified in the Department's directives for the position of 
Principal Deputy Under Secretary of Defense for Personnel and 
Readiness.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense.
    Answer. If confirmed, I would serve the Secretary as his advisor 
and advocate for the management of human resources in the Department.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would serve the Deputy Secretary as his 
advisor and advocate for the management of human resources in the 
Department.
    Question. The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)).
    Answer. If confirmed, ASD(HA) would be my principal advisor for all 
DOD health policies, programs, and force health protection activities.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(ASD(RA)).
    Answer. If I am confirmed, ASD(RA) would be my principal advisor 
for all Reserve component matters in the Department of Defense (DOD).
    Question. The DOD General Counsel.
    Answer. If confirmed, I would anticipate regular communication, 
coordination of actions, and exchange of views with the General Counsel 
and the attorneys assigned to focus on personnel and readiness policy 
matters. I would expect to seek and follow the advice of the General 
Counsel on legal, policy, and procedural matters pertaining to the 
policies promulgated from the USD(P&R).
    Question. The DOD Inspector General.
    Answer. The DOD Inspector General is in charge of promoting 
integrity, accountability, and improvement of DOD personnel, programs, 
and operations to support the Department's mission and serve the public 
interest. If confirmed, I would fully assist in any investigations or 
issues that relate to personnel and readiness.
    Question. The Service Secretaries.
    Answer. If confirmed, I would work closely with the Secretaries of 
the Military Departments on all matters relating to the management and 
well-being of military and civilian personnel in the DOD Total Force 
structure.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense. If 
confirmed, I would work through ASD(RA) to ensure effective integration 
of National Guard capabilities into a cohesive Total Force.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force.
    Answer. If confirmed, I would work with these officials as partners 
in carrying out the human resource obligations of the Services.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I would work closely with these officers to 
ensure that DOD attracts, motivates, and retains the quality people it 
needs.
    Question. The combatant commanders.
    Answer. If confirmed, I would foster mutually respectful working 
relationships that translate into providing the Total Force 
capabilities needed to complete combat missions.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1).
    Answer. If confirmed, I would seek a close coordinating 
relationship and open channels of communication with the Joint Staff 
regarding personnel and readiness policy issues.

                SYSTEMS AND SUPPORT FOR WOUNDED WARRIORS

    Question. Servicemembers who are wounded and injured performing 
duties in Operations Enduring Freedom, Iraqi Freedom, and New Dawn 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from Active Duty, if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Walter Reed Army Medical Center (WRAMC) in 2007 
illustrated, the Services were not prepared to meet the needs of 
returning wounded servicemembers. Despite the enactment of legislation 
and renewed emphasis, many challenges remain.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. While I do not have enough information at this time to make 
a full assessment, I am aware that medical, benefit, and transitional 
assistance improvements have been made since 2007 to ensure our 
wounded, ill, and injured servicemembers receive the care and support 
necessary to either return to Active Duty or to civilian life. However, 
it is a continually evolving process with ever increasing demands and 
the Department must regularly evaluate its Wounded Warrior programs and 
constantly strive to improve.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. A significant strength, in my opinion, is the highest level 
priority the Department has placed on caring for our wounded warriors 
and their families. The sustained focus and assessment of the needs of 
the wounded, ill, and injured servicemembers will allow the Department 
to continue its progress in caring for these members.
    Question. What are the weaknesses that need to be corrected?
    Answer. The Department should better identify opportunities for 
improvement by putting in place a proactive assessment and evaluation 
process that corrects weaknesses.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. Although I do not have any specific recommendations at this 
time, if confirmed, I would ensure that current programs and policies 
are regularly evaluated and outcome assessments conducted with 
adjustments made, as needed, to ensure necessary resources are in place 
to take care of our recovering wounded warriors and their families.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program, and now an Integrated DES program, has been 
established to improve processing of servicemembers.
    What is your assessment of the need to further streamline and 
improve the Integrated DES?
    Answer. There are always opportunities for improvements. I believe 
the Department has an obligation to our servicemembers participating in 
the Integrated DES to proactively evaluate the program and proactively 
apply lessons learned.
    Question. If confirmed, how will you address any need for change?
    Answer. The Integrated DES is a collaborative effort between DOD 
and the Department of Veterans Affairs. If confirmed, I would work in 
close collaboration with the Department of Veterans Affairs to 
continually evaluate the process and apply unified solutions to correct 
identified deficiencies.

 DEPARTMENT OF DEFENSE AND DEPARTMENT OF VETERANS AFFAIRS COLLABORATION

    Question. Secretary of Defense Gates and Secretary of Veterans 
Affairs Shinseki have pledged their support for improving and 
increasing collaboration between their respective departments to 
support military servicemembers as they transition to veteran status, 
in areas of health and mental health care, disability evaluation, and 
compensation.
    If confirmed, what role would you expect to play in ensuring that 
DOD and Veterans Affairs achieve the administration's objectives in DOD 
and VA collaboration?
    Answer. If confirmed, I will be intimately involved in the 
collaborative efforts between DOD and the Department of Veterans 
Affairs. I share the vision of a model interagency partnership that 
delivers seamless, high quality, and cost-effective services to 
beneficiaries and value to our Nation. I will do my utmost to provide 
leadership that enables the interagency effort and facilitate the 
completion of those goals. Together with USD(P&R), I will ensure that 
DOD continues to work closely with the Department of Veterans Affairs 
to ensure that transitioning servicemembers receive the benefits, care, 
and transition support they deserve.

                        DISABILITY SEVERANCE PAY

    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act for Fiscal Year 2008, enhanced 
severance pay and removed a requirement that severance pay be deducted 
from VA disability compensation for servicemembers discharged for 
disabilities rated less than 30 percent incurred in the line-of-duty in 
a combat zone or incurred during the performance of duty in combat-
related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on the existing definition of 
a combat-related disability contained in title 10 U.S.C. 1413a(e)). 
Rather than using the definition intended by Congress, DOD adopted a 
more limited definition of combat-related operations, requiring that 
the disability be incurred during participation in armed conflict.
    If confirmed, will you reconsider the Department's definition of 
combat-related operations for purposes of awarding enhanced severance 
pay and deduction of severance pay from VA disability compensation?
    Answer. Although I do not know the details, it is my understanding 
that a review of the policy implementing section 1646 of the Wounded 
Warrior Act is currently underway. If confirmed, I would look into the 
status of this review to ensure that any policy change relating to the 
definition, if warranted, meets the intent of Congress and is 
consistent with the governing statute.

                       HOMOSEXUAL CONDUCT POLICY

    Question. The current Homosexual Conduct Policy, commonly referred 
to as ``Don't Ask, Don't Tell,'' went into effect in February 1994 
after months of congressional hearings and debate resulting in the 
enactment of a Federal statute. Although there have been some changes 
in how this policy has been implemented, the basic policy has not 
changed. President Obama made it clear that he intends to work with the 
military and with Congress to repeal the policy. Following their 
February 2, 2010, testimony recommending repeal of the policy, 
Secretary of Defense Gates and Chairman of the Joint Chiefs of Staff 
Admiral Mullen, initiated a high-level, comprehensive review of the 
impact of repealing the current law.
    What is your view on repealing or changing this policy?
    Answer. If confirmed, I would assist the USD(P&R) to work closely 
with the Military Department Secretaries and the Service Chiefs to 
provide the Secretary of Defense the best advice possible on the way 
forward regarding this issue.
    Question. If confirmed, what role, if any, would you anticipate 
playing in efforts to repeal or change this policy?
    Answer. If Congress changes the law and if confirmed, I would 
assist USD(P&R) in leading the implementation of the change in the 
policy within DOD. I would work closely with the Services to ensure the 
revising of this policy is done in a way that maintains our highest 
state of military readiness.

                          RELIGIOUS GUIDELINES

    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. The Department does not endorse the establishment of 
religion, but it does guarantee its free exercise. The Department and 
the Military Services ensure servicemembers may observe the tenets of 
their respective religions, including the right to hold no specific 
religious conviction or affiliation.
    Question. In your view, do these policies appropriately accommodate 
religious practices that require adherents to wear particular articles 
of faith?
    Answer. My understanding is that wearing particular articles of 
faith are permissible so long as the articles are neat and 
conservative; do not negatively impact the readiness, good order, or 
discipline of the unit; and the mission is not jeopardized. If 
confirmed, I would continue to monitor and evaluate this issue.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. Yes.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. It is my understanding that the military chaplaincy has 
done an admirable job in ministering amidst the pluralistic environment 
of the military. Even as chaplains express their faith, they and their 
commanders also are asked to be as inclusive as possible when 
ministering to an interfaith group. I believe that as a group, military 
chaplains work to balance these responsibilities well.
    Question. The Independent Review Related to Fort Hood observed that 
``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization.'' Recommendation 2.7 of the Final Recommendations 
urged the Department to update policy to clarify guidelines for 
religious accommodation and Recommendation 2.8 urged the Department to 
task the Defense Science Board to ``undertake a multi-disciplinary 
study to identify behavioral indicators of violence and self-
radicalization . . . ''.
    What is your view of this recommendation?
    Answer. I cannot make an assessment at this time, but if confirmed, 
evaluating the adequacy of current policies concerning the safeguarding 
of our servicemembers would be a top priority.
    Question. Will you work to ensure that a scientific fact-based 
approach to understanding radicalization will drive the Department's 
relevant policies on this topic?
    Answer. If confirmed, I would review the plans that are currently 
in place to address these challenges, and determine what, if any, 
changes should be made to them to address this critical issue. I would 
intend to collaborate with my colleagues in the Office of the Secretary 
of Defense, the Military Services, and the Joint Staff in charting the 
right course for the Department.

           PROTECTION OF U.S. FORCES AGAINST INTERNAL THREATS

    Question. One year ago, 13 people were slain and scores wounded 
during a shooting rampage allegedly carried out by a U.S. Army medical 
corps officer. A DOD review of the attack released in January 2010 
concluded that the Department was poorly prepared to defend against 
internal threats, including radicalization among military personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. It is my understanding that while the first responders and 
initial response teams were well-prepared to react to this incident, 
the proceeding warning signals were not properly recognized and 
therefore, this tragedy was not prevented. If confirmed, I would work 
with the USD(P&R) to gain a comprehensive understanding of the lessons 
learned, corrective actions taken, and the plan moving forward in order 
to increase our force protection on our installations.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. If confirmed, I would work closely with DOD leadership to 
strengthen the areas identified by the Fort Hood Independent Review to 
include mitigating violence in the workplace, ensuring commanders/
supervisors have access to appropriate personnel records, and 
integrating and strengthening force protection policies. Furthermore, I 
will work closely with our medical community to give commanders a 
better understanding of how to identify violence indicators.

                      MUSLIMS IN THE U.S. MILITARY

    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. Every servicemember has a right to practice their religious 
faith without fear of persecution or retribution. If confirmed, I will 
review policies to ensure that they are adequate to provide physical 
and emotional safety from religious harassment and will take 
appropriate action, if needed.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    In order to safeguard the rights of servicemembers, there must be 
both formal and informal feedback procedures that quickly identify and 
assess any harassment, should it occur. Responses to grievances, or any 
identified shortcomings in command climate assessments, must be quick, 
thoughtful, and effective. If confirmed, I would review the viability 
of these feedback systems, and take measures to correct them, as 
appropriate.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
combat areas of operation are still being reported. Victims and their 
advocates claim that they are victimized twice: first by attackers in 
their own ranks and then by unresponsive or inadequate treatment for 
the victim. They assert that their command fails to respond 
appropriately with basic medical services and with an adequate 
investigation of their charges followed by a failure to hold assailants 
accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. It is my understanding that the Department has put 
considerable effort into the development of policies and programs 
designed to address sexual assault. If confirmed, I would review those 
policies to ensure the Department provides the appropriate care to 
victims and hold offenders accountable.
    Question. What problems, if any, are you aware of in the manner in 
which this new confidential reporting procedure has been put into 
operation?
    Answer. I have not been informed of any specific problems in the 
implementation of the confidential reporting option, called restricted 
reporting. I am aware that the restriction of no investigation when a 
victim chooses restricted reporting has concerned commanders 
responsible for the actions of their unit members. I believe that the 
Department must find a balance between victim care and offender 
accountability but of the utmost importance is that victims come 
forward and obtain support they need following an assault.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults against contractor personnel?
    Answer. I do not have enough information to make a detailed 
assessment at this time, but I am aware the Department has focused on 
educating servicemembers deploying to combat zones about how to prevent 
sexual assault and what to do should it occur. That said, it has been 
made clear to me that if anyone shows up at a military treatment 
facility following a sexual assault, he or she will receive care.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. I know that all Services have been directed to establish 
guidelines for a 24-hour, 7-day per week sexual assault response 
capability for all locations, including deployed areas. At this time, I 
cannot make an assessment of the effectiveness of those guidelines, but 
if confirmed, evaluating the adequacy of training and resources 
allocated to sexual assault investigation and response would be a top 
priority.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. I strongly believe that anyone who commits a sexual assault 
in the military needs to know that they will be held accountable. That 
is how DOD removes perpetrators from our ranks and, at the same time, 
show victims that taking the difficult step of assisting with an 
investigation will help their fellow servicemembers. I understand that 
the Services are working towards increasing the subject matter 
expertise of those investigating and prosecuting sexual assaults. If 
confirmed, I am committed to ensuring that accountability remains a key 
priority.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. Sexual assault reaches across the Department, and as such, 
outreach and accountability efforts need to have the same reach. If 
confirmed, I would ensure that the Department has the correct structure 
in place to engage the departmental leadership, and the leadership of 
other agencies such as the Departments of Veterans Affairs, Health and 
Human Services, and Justice, in planning, guiding, and evaluating our 
efforts.

                           SERVICE ACADEMIES

    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. I believe the Department's sexual assault and sexual 
harassment policies provide a foundation for combating sexual 
misconduct at the Service Academies. There must be policies and 
procedures that encourage victims to come forward and that hold 
offenders accountable, as well as effective training programs. It is my 
understanding that the academies have institutionalized prevention and 
response programs. I further understand that the Department reviews the 
efforts of the academies annually. If confirmed, I would continue that 
oversight and determine whether additional measures need to be taken.
    Question. What is your assessment of measures taken at the Service 
Academies to ensure religious tolerance and respect, and to prevent 
sexual assaults and sexual harassment?
    Answer. Regarding religious tolerance, I do not have enough 
information to make an assessment at this time. I believe it is 
imperative that leaders, at all levels, must continue to ensure that 
every member of the DOD respects the spirit and intent of laws and 
policies surrounding the free exercise of religion.
    On the topic of sexual assault, it is my understanding that the 
academies have institutionalized prevention and response programs. I 
further understand that the Department reviews the efforts of the 
academies annually. If confirmed, I would continue that oversight and 
determine whether additional measures need to be taken.

                         WOMEN IN THE MILITARY

    Question. The Navy recently opened service on submarines to women 
and the Marine Corps recently expanded service opportunities for women 
in intelligence specialties. The issue of the appropriate combat role 
of women in the Armed Forces is a matter of continuing interest to 
Congress and the American public.
    Do you believe additional specialties should be opened up for 
service by women?
    Answer. In my opinion, DOD has sufficient flexibility under current 
law to make assignment policy for women, if needed. DOD should continue 
to monitor combat needs as Services recommend expanding deployment 
roles for women.
    Question. Do you believe any changes in the current policy 
regarding women in combat are needed?
    Answer. I am not aware of any changes necessary at this time. It is 
my understanding that Department policy and practices are reviewed on a 
recurring basis to ensure compliance and effective use of manpower. If 
confirmed, I would take my responsibility to review each proposed 
policy change very seriously and ensure changes to existing policy move 
forward only when accompanied by a thorough plan for implementation.

                      RISING COSTS OF MEDICAL CARE

    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.''
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. I am informed that government estimates indicate these 
costs could rise to over 10 percent of the DOD budget in just a few 
years. If confirmed, I would research means to ensure that DOD provides 
quality care, and it does so in the most cost-effective way that 
provides the best value for our servicemembers and their families.
    Question. If confirmed, what actions would you initiate or 
recommend to the Secretary of Defense to mitigate the effect of such 
costs on the DOD top-line?
    Answer. I cannot make specific recommendations at this time. 
However, if confirmed, I would work closely with our healthcare 
leadership in DOD to examine every opportunity to assure military 
beneficiaries are provided the highest quality care possible while 
managing cost growth and to provide that advice to the Secretary of 
Defense.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. I believe that to control the costs of military health 
care, DOD needs to research all possibilities. If confirmed, I would 
examine the costs of the direct care facilities, determining where 
efficiencies can be gained and investing wisely in infrastructure 
requirements. I would look at the efficiencies in procuring health care 
services in the civilian market, and, I would evaluate the benefit 
structure to see where reasonable changes could occur. In the long 
term, the promotion of healthy lifestyles and prevention among our 
beneficiaries will also help greatly reduce the demand for health 
services.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. In addition to health care costs, personnel and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget.
    What actions do you believe can be taken to control the rise in 
personnel costs and entitlement spending?
    Answer. I am aware that personnel-related costs are consuming an 
increasing proportion of the Department's finite resources. At the same 
time, I believe DOD cannot fail to adequately provide for and support 
our All-Volunteer Force and their families. This includes maintaining a 
sufficient rotation base for both our Active and Reserve personnel. If 
confirmed, I know achieving a right-sized mix of Active Duty, Reserve, 
civilians, and contractors is imperative. A key part of this challenge 
will be striking the optimum balance between personnel, 
recapitalization, and operational and support costs, while ensuring 
that related entitlements are appropriate and well-reasoned.
    Question. In your view, can the Department and the Services 
efficiently manage the use of bonuses and special pays to place high 
quality recruits in the right jobs without paying more than the 
Department needs to pay, or can afford to pay, for others?
    Answer. Although I do not have a detailed knowledge of the 
Department's and the Services' special pay programs at this time, I 
believe the use of targeted pays and bonuses can be effectively and 
efficiently used in recruiting and retaining specific skills and 
specialties.

                             MENTAL HEALTH

    Question. Senior military leaders, including the Secretary of 
Defense and Chairman of the Joint Chiefs of Staff, increasingly 
recognize the need to reduce the stigma for military personnel and 
their families and veterans in seeking mental health care.
    If confirmed, what role would you expect to play in expanding 
breadth of this message to military personnel and their families?
    Answer. If confirmed, I would continue to ensure that existing DOD 
efforts to combat stigma toward help-seeking behavior among 
servicemembers be supported and, if necessary, would expand the breadth 
of the outreach efforts. I fully support the Department's efforts to 
improve health and mental health care services, and reduce the stigma 
of mental health care.

                           SUICIDE PREVENTION

    Question. The numbers of suicides in each of the Services has 
increased in recent years. The Army released a report in June 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high-risk behaviors.
    If confirmed, what role would you play in shaping DOD policies to 
help prevent suicides both in garrison and in theater and to increase 
the resiliency of all servicemembers and their families?
    Answer. I believe DOD must support a culture to promote health and 
resiliency, and reduce high-risk behavior in the force. This requires 
both military and civilian leaders to be active participants in this 
effort and have essential roles in providing the requisite support. If 
confirmed, I will assure that proper emphasis on suicide prevention is 
placed through training, reducing stigma, increasing resilience, and 
increasing access to care. I will focus on providing standardization, 
integration of best practices, and general oversight, serving as a 
change agent and providing guidance from which the Services can operate 
their suicide prevention programs.
    Question. What is your understanding of the action that the Office 
of the Secretary of Defense is taking in response to the June 2010 Army 
report, and the data in Chapter 3 in particular?
    Answer. The Army released a report in June 2010 that analyzed the 
causes of its growing suicide rate and examined disturbing trends in 
drug use, disciplinary offenses, and high-risk behaviors. If confirmed, 
I will ensure that the Army is enforcing existing regulations and 
policies and has implemented risk mitigation strategies in suicide 
prevention for the substance abuse and behavior issues (disciplinary 
and high risk) they identified. In addition, I would support ongoing 
assessment and monitoring of the impact of these policies and 
regulations on the suicide rate.

                       READINESS RESPONSIBILITIES

    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics.
    What is your understanding of the responsibilities of the Under 
Secretary of Defense for Personnel and Readiness in ensuring military 
readiness?
    Answer. I view the responsibilities of the USD(P&R) as to advise 
the Secretary on all matters related to readiness. These include 
oversight of civilian and military training and education, personnel 
and medical readiness, and the analysis of broad mission assessments 
from the combatant commanders regarding the readiness of key units in 
support of the Secretary's deployment decisions. As for readiness 
responsibilities across the Department, if confirmed, I will work 
collaboratively with my colleagues in OSD, the Joint Staff, and the 
Services to ensure our forces are ready to execute the National 
Military Strategy, and I will sustain the readiness synergism and 
linkages that exist today across the Department, the other Federal 
Agencies, our coalition partners, and local governments and 
communities.
    Question. What are the most critical objectives to improve 
readiness reporting and monitoring of the Military Forces, and if 
confirmed, how would you work with the Military Departments as well as 
other Office of the Secretary of Defense offices to achieve them?
    Answer. I believe the Department needs accurate and timely 
readiness assessments of our military forces. These are the gauge by 
which DOD should measure our ability to execute the missions assigned 
by the President and Secretary of Defense. Accurate assessments allow 
the Department to effectively plan and manage its forces, and signal 
where there are capability shortfalls or assets are needed. It is my 
understanding that the Defense Readiness Reporting System (DRRS) 
provides the means to capture these assessments from our military 
commanders, and provides a holistic and important view of the 
Department's readiness to the senior leadership. If confirmed, I would 
personally review DRRS implementation to ensure the Department is 
meeting the needs of the senior leadership and a unity of effort across 
the Department to drive this important effort to a fully operational 
capability.

                        ACTIVE-DUTY END STRENGTH

    Question. In the National Defense Authorization Act for Fiscal Year 
2010, Congress authorized higher Active Duty end strengths for all the 
Services.
    In your view, what is the appropriate Active Duty end strength for 
each of the Services?
    Answer. While I cannot make an informed assessment at this time, I 
believe strongly that our forces, both Active and Reserve, must be 
large enough to not only satisfy deployed demands, but also have a 
rotation base that recognizes the personal needs of our volunteers and 
their families. If confirmed, I would devote considerable attention to 
this important issue.
    Question. What challenges will the Services face in maintaining 
these higher end strengths?
    Answer. The foremost challenge will be monitoring and responding to 
retention and recruiting trends, especially as the economy improves.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. DOD continues to face significant shortages in critically 
needed military medical personnel in both the Active and Reserve 
components. The committee is concerned that growing medical support 
requirements will compound the already serious challenges faced in 
recruitment and retention of military medical, dental, nurse, and 
behavioral health personnel.
    What is your understanding of the shortages of health care 
professionals currently being experienced in DOD and the sufficiency of 
the plans to meet recruiting and retention goals?
    Answer. Regarding military healthcare servicemembers, it is my 
understanding the current overall manning of the health professions is 
at or above manning requirements. If confirmed, one of my goals will be 
to improve the recruitment and retention of health professional 
specialties which currently fall below manning requirements. To retain 
our health professionals, Congress has provided DOD broad authority to 
provide special and incentive pays for all health professional 
officers. I believe there is an increased need for civilian healthcare 
providers and DOD must remain competitive to recruit from the civilian 
labor market.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Military Services can continue to meet medical support 
requirements?
    Answer. In regard to legislative and policy initiatives for the 
Military Services, I do not have any specific recommendations at this 
time. However, I believe there may be a need for more flexible 
recruiting and retention strategies such as the recently granted 
authority to use bonuses and special pays as needed to recruit, hire, 
and retain medical specialties.

                               DWELL TIME

    Question. Even though dwell time is improving as our forces draw 
down in Iraq, many Active Duty military members are still not 
experiencing the ideal dwell time of 2 years at home for every year 
deployed.
    In your view, when will the Active component dwell time goal be 
met?
    Answer. From my perspective, the largest impact to dwell time will 
come from the balance of the drawdown in Iraq and the President's 
decisions regarding Afghanistan. Increases in end strength for the 
Army, Marine Corps, and Special Operations Forces over the past several 
years should translate into dwell times increasing.
    The Iraq drawdown will also serve to increase the dwell time for 
our units as fewer forces will need to be deployed. How much this will 
increase dwell time depends on the level of forces needed for 
Afghanistan. In all cases, however, DOD must carefully manage our 
forces across the Department. This involves careful assessment of where 
and when military forces are needed, and how to structure the force to 
best meet the projected demands.
    Question. In your view, would additional Army end strength in 2011 
or 2012 improve dwell time ratios and reduce stress on the force, and 
if so, what numbers of Active and Reserve component members would be 
necessary?
    Answer. I do not have enough information to make an assessment at 
this time. I defer to the analysis of the Quadrennial Defense Review as 
to whether current end strength increases are sufficient in light of 
anticipated strategy and projected needs.

     MOBILIZATION AND DEMOBILIZATION OF NATIONAL GUARD AND RESERVES

    Question. Over the past 9 years, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness, monitoring, antiquated pay systems, limited 
transition assistance programs upon demobilization, and lack of access 
to members of the Individual Ready Reserve. Reserve Force management 
policies and systems have been characterized in the past as inefficient 
and rigid and readiness levels have been adversely affected by 
equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. It is my understanding that the Department has focused on 
increasing the alert and mobilization times prior to mobilization; DOD 
needs to ensure that we provide predictability to servicemembers, their 
families, and employers. If confirmed, I would continue the efforts of 
the Department to monitor this issue closely, as we know that 
predictability is a major factor for all those affected, and I believe 
strongly that National Guard and Reserve personnel deserve first-class 
mobilization and demobilization procedures, health screening, and 
transition assistance programs.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. It is my understanding the most significant enduring 
changes are in the implementation of service force generation plans, 
which have been created to provide a defined cycle to prepare Reserve 
component units for employment as an operational force. This enables 
units to train for a mission prior to mobilization and deploy and 
redeploy on a predictable time line.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. If confirmed, I would review existing authorities and 
proposed legislation to ensure that the Department has appropriate 
authorities in light of the role of the Guard and Reserves in our force 
deployment plans.

              MEDICAL AND DENTAL READINESS OF THE RESERVES

    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. It is essential for DOD and all the Service components to 
have a single repository of data which accurately reflects the medical 
and dental readiness of the Reserve components. If confirmed, I will 
work with the Assistant Secretaries of Defense for Health Affairs and 
Reserve Affairs in bringing the appropriate parties, including 
information management, medical, and line personnel, together to 
examine the reporting processes in detail, to agree on the necessary 
definitions of what and who should be monitored, and to fill any gaps 
in the reporting processes.
    Question. How would you improve upon the Department's ability to 
produce a healthy and fit Reserve component?
    Answer. If confirmed, I will closely examine the significant 
progress in improvement that I understand has been made in medical and 
dental readiness for the Reserve component and identify what still 
needs to be accomplished to achieve the goal of a healthy and fit 
Reserve component force.

                        MILITARY QUALITY OF LIFE

    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality-of-life factors for military families, such as family 
support, child care, education, health care, and morale, welfare, and 
recreation services.
    How do you perceive the relationship between military recruitment 
and retention and quality-of-life improvements and your own top 
priorities for the Armed Forces?
    Answer. Quality-of-life efforts impact the recruitment and 
retention of military personnel and are key to maintaining the All-
Volunteer Force. A servicemember's satisfaction with various aspects of 
military life as well as the servicemember's family experience 
influences members' decision to reenlist. If confirmed, I would review 
how effectively our programs meet the needs of servicemembers and their 
families, and ensure that they are contributing positively to 
recruitment and retention.
    Question. If confirmed, what further enhancements to military 
qualify-of-life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. I would aggressively pursue the Department's priorities to 
promote the well-being and resilience of servicemembers and their 
families. I would focus on understanding the needs of our force and 
their families and expand assistance such as access to counseling, 
fitness opportunities, and childcare support to help minimize stress on 
the force. The Department leadership should work together with advocacy 
groups and Congress to efficiently close gaps and reduce overlaps in 
programs and to communicate effectively to ensure that families know 
how to access available support when they need it.

                             FAMILY SUPPORT

    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. If confirmed, I would make family readiness issues one of 
my top priorities. I would support, prioritize, and appropriately 
resource quality physical and mental healthcare, spouse career 
assistance, childcare, other elements of dependent support, and 
education needs.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and growth in end 
strength?
    Answer. If confirmed, I would continue the Department's current 
approach to identify and address family readiness needs, to gather 
information from the Services, commands, servicemembers and families, 
professional organizations, and researchers about how to best prepare 
families for rebasing, BRAC, deployments, and other stressful aspects 
of military life.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment, and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. If confirmed, I would ensure that the Department's Yellow 
Ribbon Program is properly focused and funded to address the issues 
faced by members of the Active, Guard, and Reserve and their families. 
The program should provide information, access, referrals, and outreach 
to military members and their families. This needs to be underwritten 
by a coordinated, community-based network of care encompassing DOD, VA, 
State, local, non-profit, and private providers. My goal would be to 
provide a full range of services for Active, Guard, and Reserve members 
and their families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I would encourage the implementation of 
flexible family support programs that meet the needs of our 
servicemembers and their families, whether they live on military 
installations, near military installations, or far from military 
installations.

                          ACCESS TO HEALTHCARE

    Question. One of the major concerns for military family members is 
access to health care. Military spouses tell us that the healthcare 
system is inundated, and those stationed in more remote areas may not 
have access to adequate care.
    If confirmed, what steps would you take to ensure complete access 
to healthcare for the families of servicemembers?
    Answer. I agree that access to care for family members is an 
important concern and, if confirmed, I will work to ensure appropriate 
access to care is a key feature of our TRICARE program and will 
continually explore ways to ensure all beneficiaries are provided the 
appropriate level of care within the established TRICARE Access to Care 
Standards.

  OFFICE OF COMMUNITY SUPPORT FOR MILITARY FAMILIES WITH SPECIAL NEEDS

    Question. In the National Defense Authorization Act for Fiscal Year 
2010 (section 563), Congress required the establishment of an Office of 
Community Support for Military Families with Special Needs within the 
Office of the Under Secretary of Defense for Personnel and Readiness. 
The purpose of this office is to enhance and improve DOD support for 
military families with special needs, be they educational or medical in 
nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families with Special Needs?
    Answer. I believe the priorities of this office include medical and 
educational programs to strengthen military families with special 
needs. If confirmed, I would support the critical efforts of this 
office to establish consistent policy and monitor its implementation 
across the Services. I would identify programs already in existence 
that can provide special services to military families.
    Question. If confirmed, how would you ensure outreach to those 
military families with special needs dependents so they are able to get 
the support they need?
    Answer. If confirmed, I would ensure increased communication 
efforts to reach families with special needs through the use of 
webinars, social media outlets, base newspapers, commissaries and 
exchanges, childcare centers and youth facilities, DOD schools and a 
variety of DOD and Services' websites. In addition, I would emphasize 
collaboration with civilian community resources.

                 MY CAREER ADVANCEMENT ACCOUNTS PROGRAM

    Question. The Department established the My Career Advancement 
Accounts (MyCAA) program, a demonstration project that provides 
military spouses with funds through ``career advancement accounts'' to 
help enable them to pursue portable careers. In February 2010, the 
Department became overwhelmed by the numbers of program applicants, 
subsequently ran out of funds, and then temporarily halted the program. 
The program has now restarted, but the funds, as well as the number of 
spouses who would be eligible for the program, will be more limited.
    What is your understanding of the current focus and objectives of 
the program?
    Answer. I believe the objective of the MyCAA program is to ensure 
that military spouses have opportunities to pursue and sustain a career 
while supporting their servicemembers. It is my understanding that the 
current MyCAA is available only to spouses of Active Duty members in 
the pay grades of E1-E5, W1-W2, and O1-O2. MyCAA is restricted to 
$4,000 per eligible spouse and must be used over a 3-year period for an 
Associate's degree, a license, or a credential leading to a portable 
career. I believe these financial parameters will allow the Department 
to sustain the program. It is my understanding that DOD continues to 
offer robust career counseling programs to all our spouses.
    Question. If confirmed, what would be your objectives for the MyCAA 
program and other spouse employment initiatives or programs?
    Answer. My objective would be to assist, support, and empower them 
in making informed decisions through offering them an opportunity to 
obtain comprehensive information on high-growth, high-demand, portable 
occupations that can move with them as they relocate. This would 
include occupational information on education, license, and credential 
requirements, how to access other Federal, State, and private 
opportunities for financial assistance in achieving these requirements, 
as well as understanding earnings potential. I would also promote the 
outstanding pipeline of talent that military spouses represent to 
America's employers. Military spouses are talented, diverse, motivated, 
and bring strong values to the workplace.

                       MEDICAL RESEARCH PROGRAMS

    Question. What do you see as the highest priority medical research 
investment areas for DOD?
    Answer. I believe the highest priorities are to address critical 
research capability gaps related to the treatment and recovery of 
wounded warriors, such as the diagnosis and treatment of Traumatic 
Brain Injury (TBI), Post Traumatic Stress Disorder (PTSD), and other 
elements of combat related stress, development of improved prosthetics, 
treatment of eye injury, and other deployment and battlefield-related 
injuries.
    Question. How will you assess the amount of investment made in 
these research areas to determine if they are sufficient to meet DOD 
goals and requirements?
    Answer. If confirmed, I would review the current research portfolio 
to ensure it prioritizes and resources research appropriate to the 
requirements of the Department.
    Question. How will you ensure that DOD medical research efforts are 
well coordinated with similar research programs within the private 
sector, academia, the Services, DARPA, the Department of Veterans 
Affairs, and the National Institutes of Health?
    Answer. If confirmed, I would support coordination efforts to 
ensure that research is being conducted jointly, building on and 
partnering with industry, academia, and other government agencies to 
ensure the greatest return to our warfighters. I am aware that joint 
program committees have been established to engage with Federal 
partners to ensure that our research reflects the best interests of our 
service personnel.
    Question. How will you ensure that new medical technologies 
(including drugs and vaccines) are independently and adequately tested 
before their use by DOD organizations and personnel?
    Answer. If confirmed, I would ensure that the Department applies 
the highest standards of the Food and Drug Administration (FDA) to 
ensure new medical technologies, drugs, and vaccines are safe and 
effective before they are adopted for use in the Department.
    Question. There have been growing privacy and security concerns 
raised about the use of on-line social networks for medical research 
purposes.
    How will you ensure that the increasing use of social networking 
media for medical research purposes will protect the privacy and 
security of patients?
    Answer. If confirmed, I would ensure active application of the 
Department's policy, which states that the rights and welfare of human 
subjects in research supported or conducted by the DOD components will 
be protected. This protection is based on the ethical principles of 
respect for persons and beneficence, and encompasses requirements to 
obtain informed consent and to do no harm. In implementing this policy, 
the Department will adhere to the applicable statutory provisions for 
human protections in research as well as supporting Department 
policies.
    Question. What are your biggest concerns related to the DOD medical 
research enterprise?
    Answer. Although I do not have detailed knowledge of the entire 
research portfolio, I am especially interested in ensuring the 
responsiveness of the research program to medical readiness and our 
warfighters' medical needs. This will be accomplished by assuring that 
DOD has a balanced investment in medical science and technology and in 
medical advanced development leading to timely incorporation into 
clinical practice in the Military Health System.

                    MORALE, WELFARE, AND RECREATION

    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel and retirees.
    What challenges do you foresee in sustaining MWR programs 
(particularly in view of the Secretary's efficiencies initiatives) and, 
if confirmed, what improvements would you seek to achieve?
    Answer. It is my understanding that the benefits of strong MWR 
programs are critical to esprit de corps, stress reduction, and 
personal health and well-being. Although there are very extensive 
installation MWR facilities and programs, I believe there is an 
immediate challenge in ensuring that MWR programs for our deployed 
forces meet their needs, especially free access to the Internet to 
communicate with family and friends back home and fitness and 
recreation activities to keep forces fit to fight. Recreation support 
for our wounded warriors is also critical. In the longer term, I 
believe the Department needs to understand what programs are valued by 
servicemembers and their families in order to make wise investments. In 
addition, the MWR customers need to be involved in expressing their 
needs and satisfaction with our programs and policies; I understand the 
Department will conduct the second MWR customer satisfaction survey in 
fiscal year 2011. If confirmed, these are all areas I would 
aggressively pursue.

                COMMISSARY AND MILITARY EXCHANGE SYSTEMS

    Question. Commissary and military exchange systems are significant 
quality of life components for members of the Active and Reserve Forces 
and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. I understand that commissary and exchange programs and 
policies must continue to evolve to meet the needs and expectations of 
our changing force and a changing marketplace. I believe efforts should 
be aimed at reducing overhead and pursuing new avenues to reach our 
military families who do not live on military installations. The 
commissary system should deliver customer savings and also achieve high 
satisfaction ratings. The military exchange resale community must 
continue to work, individually and collaboratively, to adapt marketing 
and selling practices, invest in technologies, and improve merchandise 
availability to be more responsive to military customers.
    Question. In the Ronald W. Reagan National Defense Authorization 
Act for Fiscal Year 2005, Congress required the Secretary of Defense to 
establish an executive governing body for the commissary and exchange 
systems to ensure the complementary operation of the two systems.
    What is your understanding of the purpose and composition of the 
executive governing body?
    Answer. I am aware the Department established the DOD Executive 
Resale Board as the governing body to provide advice to the USD(P&R) 
regarding the complementary operation of the commissary and exchange 
systems. I have been informed that the Board works to resolve issues 
and has been instrumental in pursuing matters of mutual benefit to the 
elements of the military resale system. The Board is chaired by the 
PDUSD(P&R), and members include both the senior military officers and 
civilians who oversee and manage the commissary and exchange systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. The Secretary designated the PDUSD(P&R) as the chairperson 
of the Executive Resale Board. If confirmed, I would ensure the Board 
would continue to meet regularly to review operational areas of mutual 
interest to the commissary and exchange systems.

                       CIVILIAN PERSONNEL SYSTEMS

    Question. Section 1113 of the National Defense Authorization Act 
for Fiscal Year 2010 repealed the statutory authority for the National 
Security Personnel System (NSPS), and required that all NSPS employees 
be converted to other personnel systems by no later than January 1, 
2012.
    What is your understanding of the Department's progress in 
converting its civilian employees from NSPS?
    Answer. I understand during fiscal year 2010, 172,000 employees 
representing approximately 76 percent of the NSPS population were 
transitioned from NSPS to the Government-wide General Schedule system. 
I also understand the transition of all remaining NSPS employees to the 
appropriate statutory pay and personnel system will be completed by the 
statutory deadline of January 1, 2012.
    Question. Section 1113 also provides DOD with extensive personnel 
flexibilities for its civilian employees that are not available to 
other agencies. In particular, section 9902(a) of title 5, U.S.C., as 
added by section 1113, directs the Department to establish a new 
performance management system for all of its employees. Section 9902(b) 
directs the Department to develop a streamlined new hiring system that 
is designed to better fulfill DOD's mission needs, produce high-quality 
applicants, and support timely personnel decisions.
    Do you agree that DOD's civilian employee workforce plays a vital 
role in the functioning of the Department?
    Answer. Yes, DOD's civilian employee workforce plays an 
instrumental role in the functioning of the Department.
    Question. What is your view of the personnel flexibilities provided 
by section 1113?
    Answer. I understand Congress provided these flexibilities to allow 
the Department to better meet mission requirements. If confirmed, I 
will support the work that I understand is under way to develop the 
flexibilities.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes.
    Question. Section 1112 of the National Defense Authorization Act 
for Fiscal Year 2010 directs the Department to develop a Defense 
Civilian Leadership Program (DCLP) to recruit, train, and advance a new 
generation of civilian leaders for the Department. Section 1112 
provides the Department with the full range of authorities available 
for demonstration programs under section 4703 of title 5, U.S.C., 
including the authority to compensate participants on the basis of 
qualifications, performance, and market conditions. These flexibilities 
are not otherwise available to DOD.
    Do you agree that the Department needs to recruit highly qualified 
civilian personnel to meet the growing needs of its acquisition, 
technical, business, and financial communities?
    Answer. Yes.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. Although I believe the Department currently has a highly 
talented workforce, I wholeheartedly support the initiatives to 
streamline and reform the civilian hiring process. There is much work 
to be done in this area, and if confirmed, I would ensure that the 
Department actively engages in the Government-wide initiative to reform 
civilian hiring and aggressively pursues improvements within the 
Department.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. Yes.

                         HUMAN CAPITAL PLANNING

    Question. Section 115b of title 10, U.S.C., as added by section 
1108 of the National Defense Authorization Act for 2010 requires the 
Secretary of Defense to develop and annually update a strategic human 
capital plan that specifically identifies gaps in the Department's 
civilian workforce and strategies for addressing those gaps. Section 
115b requires that the plan include chapters specifically addressing 
the Department's senior management, functional, and technical workforce 
and the Department's acquisition workforce.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes.
    Question. Do you see the need for any changes in the requirements 
for a strategic human capital plan under section 115b?
    Answer. At this time, I have no recommendations. If confirmed, I 
would review the strategic human capital planning that the Department 
has conducted over the past years against the section 115b requirements 
to determine if any changes may be needed to improve the Department's 
overall workforce planning effort.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes.

      BALANCE BETWEEN CIVILIAN EMPLOYEES AND CONTRACTOR EMPLOYEES

    Question. In recent years, DOD has become increasingly reliant on 
services provided by contractors. Over the past 8 years, DOD's civilian 
workforce has remained essentially unchanged in size. Over the same 
period, the Department's spending on contract services has more than 
doubled, with the estimated number of contractor employees working for 
the Department increasing from an estimated 730,000 in fiscal year 2000 
to an estimated 1,550,000 in fiscal year 2007. As a result of the 
explosive growth in service contracts, contractors now play an integral 
role in the performance of functions that were once performed 
exclusively by government employees, including the management and 
oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of DOD?
    Answer. I support the Secretary's initiative announced with the 
fiscal year 2010 budget to reduce the Department's reliance on 
contracted services contractors. I believe the desired outcome of the 
Department's in-sourcing initiative is a balanced total workforce of 
military, government civilians, and contracted services that 
appropriately align functions to the public and private sector, and 
results in the best value for the taxpayer.
    Question. In your view, has DOD become too reliant on contractors 
to perform its basic functions?
    Answer. If confirmed, I would support the Department's ongoing 
efforts to critically examine currently contracted functions. Striking 
a balance between government and contractor performance that ensures 
uncompromising government control of critical functions, while 
providing best value to the taxpayer, is imperative.

               SECRETARY GATES' EFFICIENCIES INITIATIVES

    Question. In May 2010, Secretary Gates launched an initiative to 
strengthen and modernize our fighting forces by eliminating inefficient 
or duplicative programs. In an August 16, 2010, memo to DOD components, 
the Secretary directed 20 specific initiatives, many involving military 
and civilian personnel and DOD contractors.
    What is your assessment of the efficiencies announced by the 
Secretary to date, and if confirmed, what criteria would you use to 
identify and justify additional opportunities for efficiency in 
programs within the purview of the Under Secretary of Defense for 
Personnel and Readiness?
    Answer. I understand that Secretary Gates is attempting to identify 
efficiencies and redundancies within DOD and, if confirmed, I would 
support the implementation and continuation of this effort. I would use 
the Secretary's criteria to divest the Department of missions that are 
not appropriate or part of our core mission. I would also build on the 
Secretary of Defense's work of finding greater efficiencies, with the 
goal of applying those resources toward higher priority efforts within 
the Department. From shared services to other process improvements, I 
would strive to ensure Personnel and Readiness is on the leading edge 
of efficiencies while still maintaining effectiveness for the 
Department.

                         ACQUISITION WORKFORCE

    Question. Over the past 15 years, DOD has dramatically reduced the 
size of its acquisition workforce, without undertaking any systematic 
planning or analysis to ensure that it would have the specific skills 
and competencies needed to meet current and future needs. Since 
September 11, 2001, moreover, the demands placed on that workforce have 
substantially increased. Section 852 of the National Defense 
Authorization Act for Fiscal Year 2008 established an Acquisition 
Workforce Development Fund to help DOD address shortcomings in its 
acquisition workforce. The fund would provide a minimum of $3 billion 
over 6 years for this purpose.
    Do you believe that DOD acquisition workforce is large enough and 
has the skills needed to perform the tasks assigned to it?
    Answer. While I cannot make an assessment of the size of the 
workforce at this time, I fully support the Secretary's goals of 
increasing the capacity and capability of the acquisition workforce 
through reducing reliance on contracted services in key acquisition 
support functions.
    Question. Do you support the use of the DOD Acquisition Workforce 
Development Fund to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes.

               LABORATORY PERSONNEL DEMONSTRATION PROGRAM

    Question. The laboratory demonstration program founded in section 
342 of the National Defense Authorization Act for Fiscal Year 1995 as 
amended by section 1114 of the National Defense Authorization Act for 
Fiscal Year 2001, section 1107 of the National Defense Authorization 
Act for Fiscal Year 2008, section 1108 of the National Defense 
Authorization Act for Fiscal Year 2009, and section 1105 of the 
National Defense Authorization Act for Fiscal Year 2010, paved the way 
for personnel management initiatives and new flexibilities at the 
defense laboratories. These innovations have been adopted in various 
forms throughout other DOD personnel systems.
    If confirmed, will you fully implement the laboratory demonstration 
program and the authorities under these provisions?
    Answer. Yes.
    Question. If confirmed, will you ensure that the directors of the 
defense laboratories are provided the full range of personnel 
flexibilities and authorities provided by Congress?
    Answer. Yes.

                      FOREIGN LANGUAGE PROFICIENCY

    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities-based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. The priorities of the Federal Government to expanding the 
foreign language skills of civilian and military personnel and 
improving coordination between foreign language programs and activities 
among the Federal agencies should be an integrated, holistic, whole-of-
nation approach to developing these skills beginning in pre-school and 
continuing through high school and college graduation. The shortage of 
language and cultural skills is a national shortfall, not just an 
isolated DOD problem. If confirmed, I will support and build upon DOD 
efforts to ensure the education of a broader pool of Americans with 
skills in critical languages. Early education and skill development in 
critical foreign languages is paramount and must begin in pre-school 
and continue through the high school and college years. Educating our 
children beginning in pre-school and continuing throughout their 
educational journey in critical languages will result in globally 
competitive citizenry from which DOD, other Federal Government 
agencies, and the private sector can recruit.

                            GI BILL BENEFITS

    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 that created enhanced educational benefits for 
servicemembers who have served at least 90 days on Active Duty since 
September 11. The maximum benefit would roughly cover the cost of a 
college education at any public university in the country.
    What unresolved issues related to implementation of the post-9/11 
Veterans Educational Assistance Act (e.g., coverage of additional 
military personnel) do you consider most important to be addressed?
    Answer. It is my understanding that there are two technical fixes 
needed in the current statute. First, the original statute 
inadvertently left out some National Guard Active Duty as qualifying 
time for Post-9/11 GI Bill benefits. Second, although the statute 
authorized the Services to offer a supplemental payment for enlistments 
in critical skills (commonly called ``kickers''), it did not include 
the specific language required to allow the Services to use the 
Education Trust Fund to pay for these kickers. Both of these provisions 
are rectified in the current version of S. 3447, recently introduced in 
the Senate.

                          MILITARY RETIREMENT

    Question. The 10th Quadrennial Review of Military Compensation 
proposed a new defined benefit retirement plan that more resembles the 
benefits available under the Federal Employee Retirement System than 
the current military retirement benefit; increasing TRICARE fees for 
retirees; and the adoption of dependent care and flexible spending 
accounts for servicemembers. The head of a Defense Business Board Task 
Force has criticized military benefits as ``GM-style benefits'' 
describing the military retirement system as a ``pre-volunteer force 
retirement system'' and criticizing ``taxpayer-subsidized grocery 
chains and low out-of-pocket healthcare costs.''
    What is your view of the adequacy of the current military 
retirement benefit?
    Answer. I have not yet formed an opinion on the adequacy of the 
current military retirement benefit. However, it is only one component 
of the entire military compensation system. I believe it will be 
important to consider the impacts of making changes to one part of the 
system so that DOD maintains their current high quality military force.
    Question. How might it be modernized to reflect the needs of a new 
generation of recruits, while easing the long-term retirement cost of 
the government?
    Answer. I don't have a recommendation at this time, but if 
confirmed, I would review this issue carefully.
    Question. Do you share the Defense Business Board Task Force view 
of military benefits?
    Answer. I have not reviewed this report in detail, but I know that 
one of its major recommendations was changing the military retirement 
system.
    It is my understanding that the Defense Business Board is 
considering alternatives to the current military retirement system and 
alternatives for the Department to consider. If confirmed, I look 
forward to reviewing these and other proposals with the military 
departments.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Begich

                           TRICARE IN ALASKA

    1. Senator Begich. Dr. Rooney, there are over 89,000 TRICARE 
beneficiaries in the State of Alaska. Active Duty military, their 
families, and retirees face many challenges accessing health care in 
Alaska. The Military Treatment Facilities (MTF) at Fort Wainwright and 
Elmendorf Air Force Base (AFB) are top quality and provide many 
services to military members and their families. However, many 
specialties are neither available at the MTFs or at capacity and cannot 
accommodate all customers. Many civilian specialists in Alaska do not 
participate in the TRICARE network. I've worked extensively with 
TRICARE Management Activity and the Services to improve access to care. 
I commissioned an interagency working group which identified the need 
for regulatory flexibility and a single reimbursement rate to improve 
access to care in Alaska. Are you aware of these challenges? If 
confirmed, what steps would you take to improve access to healthcare in 
Alaska?
    Dr. Rooney. I am aware of these challenges. I have been advised 
that throughout Alaska there are roughly 1,783 non-Federal physicians 
of whom 1,566 are TRICARE Participating Providers. Of the 1,566 TRICARE 
participating providers, 793 are primary care physicians with 
specialties in family practice, general practice, internal medicine, 
and pediatrics. The TRICARE Management Activity's strong support in 
approving 12 locality-based waivers ranging from 125 percent to 565 
percent of the CHAMPUS Maximum Allowable Charge (CMAC) for critical 
specialty providers, coupled with an existing Rate Reimbursement/Rate 
Demonstration which sets rates in Alaska at 1.4 times the CMAC 
allowable charges, has greatly increased acceptance of TRICARE by non-
Federal providers. A significant change was noted from early 2008 to 
February 2011, when the TRICARE Preferred Provider Network increased 
from 465 to 845 providers.
    If confirmed, I would continue to support the TRICARE Management 
Activity's efforts in this regard. While I was pleased to learn that 
the Rate Reimbursement Demonstration initially set to expire in 
December 2010 was extended until December 2012, I will ensure that 
future changes to the rate structure are done collaboratively with the 
various Federal agencies that are also exploring options resulting from 
the Interagency Task Force's recommendation for regulatory flexibility 
and a single Federal reimbursement rate.

    2. Senator Begich. Dr. Rooney, if confirmed, please describe how 
you would work with the Army and the Air Force to ensure the MTFs in 
Alaska meet health care requirements of Active Duty military and their 
families, especially as the Army increases personnel stationed at Fort 
Wainwright.
    Dr. Rooney. If confirmed, I will meet regularly with the Surgeons 
General of the Services and the Assistant Secretary of Defense for 
Health Affairs to discuss provider and ancillary support staffing gaps 
in the three Alaska MTFs. I will encourage support of the MTFs to the 
maximum extent possible given the high operational tempo and associated 
deployments. I have been advised that, in all forums, there appears to 
be a strong interest in ensuring access for all. This guided the 
TRICARE Management Activity's recently approved TRICARE Expansion Plan 
favorably endorsed by the Assistant Secretary of Defense for Health 
Affairs and the Services' Surgeons General in collaboration with the 
Alaska community leadership. The focus of the Expansion Plan is on 
improved access for Department of Defense (DOD) beneficiaries without 
displacing non-DOD beneficiaries. In the context of improving access 
and protecting non-DOD beneficiaries from DOD overflow, I will 
encourage the Services' Surgeons General and the Assistant Secretary of 
Defense for Health Affairs to explore opportunities for partnerships 
with the Alaska community for such programs as Graduate Medical 
Education, thereby facilitating mutual positive outcomes. In addition, 
Elmendorf AFB already supports internships in dental, pharmacy lab, 
physician assistants, medical assistants, Doctor of Osteopathy, and a 
physician residency. State-wide recruiting efforts are being initiated 
by the State, hospitals, and our healthcare support contractor.

    3. Senator Begich. Dr. Rooney, please describe how you would work 
with TRICARE Management Activity as they work to increase the TRICARE 
network in Alaska to provide for better access to health care for our 
servicemembers and their families.
    Dr. Rooney. Access to care issues in Alaska cannot be addressed 
merely in terms of access to purchased care services in the community 
(network or non-network). As the interagency working group which you 
commissioned confirmed in their Report to Congress of September 2010, I 
have been advised that some of the issues are not under the control of 
the Under Secretary of Defense for Personnel and Readiness (USD(P&R)) 
or the Federal Government. These include licensure and certification 
rules, recruitment of primary care and specialty services, and 
apprehension on the part of private practitioners regarding changes in 
the reimbursement environment related to healthcare reform. Similarly, 
access challenges faced by TRICARE beneficiaries are no different from 
challenges faced by other beneficiaries covered by the Federal 
Government health plans or by many Alaskans covered by private pay 
plans. I was pleased to learn of the TRICARE Management Activity's 
recent initiatives in the State of Alaska, which include:

        <bullet> Establishing a TRICARE Civilian Preferred Provider 
        Network requiring the West Region's Health Care Support 
        Contractor to develop and operate such a network in designated 
        Prime Service Areas.
        <bullet> Permitting eligible TRICARE beneficiaries to enroll in 
        Prime with assignment to MTF Primary Care Managers, or, as an 
        alternative, assignment to a civilian Primary Care Manager 
        within the TRICARE civilian preferred provider network. This 
        will allow approximately 250 to 300 beneficiaries to transfer 
        to a civilian Primary Care Manager. This will include family 
        practice, pediatrics, and internal medicine providers.
        <bullet> Offering this new program, first, to the Prime Service 
        Areas surrounding Fort Wainwright Army Base and Eielson AFB in 
        Fairbanks and then, second, evaluating whether to expand it 
        further into Anchorage surrounding the Joint Base Elmendorf 
        Richardson.

    Working jointly with the political leadership, the Services, and 
the community, the TRICARE Management Activity's 18-month effort in 
bringing these initiatives to fruition is notable. If confirmed, I will 
continue to support these ongoing efforts while closely monitoring the 
impact these programs have on improving access to health care for our 
servicemembers and their families.

                       FAMILY DEPLOYMENT SUPPORT

    4. Senator Begich. Dr. Rooney, one of my priorities is support for 
our military families, especially those in Alaska. The 1st Stryker 
Brigade Combat Team, 25th Infantry Division will deploy to Afghanistan 
in May and I want to make sure their families are taken care of as 
their loved ones face yet another deployment. What do you consider to 
be the most important family readiness issue for servicemembers and 
their families?
    Dr. Rooney. I share your priority of supporting our military 
families. The impact of a deployment or multiple deployments on 
military families is the most significant family readiness issue for 
servicemembers and their families. The challenges to military family 
readiness and resiliency are numerous stressors related to separation, 
deployment, geographic isolation, high operational tempo, and financial 
worries.
    The Department has a network of Family Support Programs at all DOD 
installations worldwide that provide resources to prepare military 
families to effectively navigate the challenges of daily living 
experienced in the unique context of military service. Family Support 
Programs provide information and referral, education and training, and 
counseling services to educate families about the potential challenges 
they may face. The goal is to equip them with the skills needed to 
competently function in the face of such challenges and to increase 
their awareness of the supportive resources available to them. The 
focus of the support is to assist families with deployment, relocation, 
spousal employment, family life education (including parenting skills), 
personal financial management, volunteer opportunities, and non-medical 
counseling.
    The Family Support Programs are designed to provide training and 
support to servicemembers and families during all phases of deployment. 
In particular, to address the impact of deployment on children and 
youth, the Department augments Family Support Programs with licensed 
counselors placed in child development centers, schools, and State 
family programs. The counselors provide specialized non-medical 
counseling education, and training for parents, teachers, child 
development staff, and with parental permission, children and youth. 
Given the frequency and length of deployments, and the impact those 
separations can have on military children, the support provided by the 
child and youth counselors throughout the deployment cycle is very 
important.

    5. Senator Begich. Dr. Rooney, if confirmed, how would you ensure 
those needs are adequately resourced?
    Dr. Rooney. I will ensure funding and trained personnel are 
provided to support the ongoing needs of the families. I share the 
Department's strong commitment to providing assistance to 
servicemembers and their families, particularly in light of the 
unprecedented demands that have been placed on them. Family assistance 
programs serve a critical need in direct mission support for the 
mobilization and deployment of both the Active Duty and the Reserve 
components and I would work closely with the Services to ensure 
resources are adequate to meet the identified needs.
    In meeting the direction and goals of the Secretary of Defense to 
create a more efficient and effective organization, we will continue to 
review and assess where we can take offsets from existing programs to 
meet the high priority requirements and needs of the servicemembers and 
their families.

    6. Senator Begich. Dr. Rooney, what additional steps will you take 
to enhance family support?
    Dr. Rooney. I will ensure that existing as well as any new programs 
that serve families are continually assessed so that only those 
programs that add value and enhance family readiness and resilience are 
given resources and continued. I will insist that we integrate programs 
into a delivery system that is easily accessible and that ongoing 
evaluations focused on obtaining evidence of successful outcomes are 
developed. Successful support programs are those that respond directly 
to the needs identified by members and their families.
    The promotion and publicizing of these support programs to 
servicemembers and their families are also priorities. It is critical 
to make sure the breadth and depth of the programs are known, that they 
are being used to their full potential, and that they are being 
recognized as valuable to helping servicemembers and their families 
cope with the challenges of daily living experienced in the context of 
military service.
    In summary, it is important that:

    A.  Programs that support our servicemembers and their families 
which are regularly evaluated and have been shown to add value and 
enhance family readiness are resourced and continued;
    B.  Programs that are evidence-based are integrated into a delivery 
system that is easily accessible and those outcomes that respond to 
identified support needs of members and families are measured for 
effectiveness;
    C.  The support programs are adequately promoted and publicized; 
and
    D.  Innovative and effective programs are identified and presented 
as best practices for others to emulate.

                     OUTSOURCING VERSUS INSOURCING

    7. Senator Begich. Dr. Rooney, regarding DOD's outsourcing and 
insourcing efforts, it seems that the pendulum swings one way and then 
the other. I recently read an article which indicated the Army put 
their insourcing efforts on hold, and Secretary Gates has indicated the 
insourcing is not saving as much money as initially thought. In your 
opinion, how can DOD strike a balance between civilian and contractor 
employees that is in the best interest of DOD and the taxpayers?
    Dr. Rooney. When issues of sourcing are discussed within DOD, the 
goal is to consider it from the perspective of Total Force Management. 
Across the entire Department, it is recognized that continuous 
improvement to the Total Force Management of Active and Reserve 
military, government civilians, and contracts for services are 
critical. We must ensure that our military is not considered a free 
source of labor by organizations within the Department who rely on the 
Services to finance their recruitment, training, and development. 
Rather, the true cost of military, government civilians, and/or 
contracted support should be determined depending on individual facts 
and circumstances. To that end, the strategic view of the Total Force 
continues to evolve as the mission and plan across the FYDP are 
executed.
    Total Force Management requires a holistic analysis and 
prioritization of the work to be done. It requires identification of 
and investment in the most effective and efficient component of the 
workforce to best accomplish the tasks to deliver the required 
capabilities and level of readiness. The separate decisions that affect 
each component of the Total Force must be synchronized to achieve the 
desired outcomes and balance operational, fiscal, and acquisition 
risks.
    The challenge faced with Total Force Management is that it is 
dynamic and requires judgment informed by sound analysis. This not only 
includes the development and promulgation of policies, but also 
requires the Department to provide managers with the tools, resources, 
training, and information necessary to achieve the desired outcomes, 
all of which must occur in a difficult fiscal environment. Current 
business processes must be synchronized to ensure the risks associated 
with decisions made in the context of Total Force Management are fully 
considered.
    There is work being undertaken to improve the Department's 
Inventory of Contracts for Services, as recommended by the most recent 
Government Accountability Office (GAO) review of DOD processes and in 
compliance with changes to the governing statute as directed in the 
National Defense Authorization Act for Fiscal Year 2011. The tools and 
processes that inform the Department's inventory of military and 
civilian workload, the Inherently Governmental and Commercial 
Activities Inventory, are also being reviewed. Improvements to these 
tools are critical to achieve a more appropriate balance in the 
workforce, aligning inherently governmental activities to military and 
civilian workforces and commercial activities to the most cost 
effective service provider, whether military, civilian, or contracted 
support.

    8. Senator Begich. Dr. Rooney, how will you approach this issue?
    Dr. Rooney. I will approach this issue by recognizing that there 
has been a focus over the past few years on insourcing. The Department 
is committed to meeting the statutory obligations under title 10, which 
require an annual review of contracted services and identification of 
those services that are more appropriately performed by the government 
workforce and should be insourced.
    There is no prescribed solution, and neither all insourcing nor all 
outsourcing is ideal. The private sector and contracted support are, 
and will continue to be, a vital source of expertise, innovation, and 
support to the Department's Total Force.
    We also acknowledge the concern express by Congress as related to 
the A-76 public-private competition program, and the opportunity in the 
past year to review related policies, tools, and processes. We believe 
that the A-76 public-private competition process along with insourcing 
are critical tools for commanders and managers to have available to 
them for the purposes of validating manpower and other requirements; 
driving more consistent delivery of mission critical support and 
services to warfighters and families; and delivering required readiness 
levels while minimizing fiscal opportunity costs to meet the compelling 
needs of the Department.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen

                        NATIONAL GUARD PROGRAMS

    9. Senator Shaheen. Dr. Rooney, the United States has come to rely 
heavily on our National Guard members. Our Guard has experienced the 
largest and most sustained deployment since World War II. In New 
Hampshire, we have seen the largest Guard deployments in the history of 
our State. You mention in your advance policy questions that you 
believe that National Guard and Reserve personnel ``deserve first-class 
mobilization and demobilization procedures, health screening, and 
transition assistance programs.'' If confirmed, what role would you 
play in ensuring our National Guard and Reserve servicemembers are 
extended first-class support benefits--before, during, and after their 
deployments?
    Dr. Rooney. I share Congress' sentiment that our National Guard and 
Reserve servicemembers deserve first-class mobilization and 
demobilization procedures, medical and dental screening, and transition 
assistance programs. If confirmed, I will work with the Services to 
ensure that they comply with departmental activation policy and that 
the policy is balanced and effective. I would support current 
departmental initiatives aimed at providing as much advanced notice to 
deploying servicemembers and units as possible. This will ensure that 
servicemembers receive their entitlements in a timely fashion. I also 
believe that it is imperative that transition assistance be made 
possible to all redeploying servicemembers of the Reserve component. I 
will work with the Services to ensure that pre- and post-deployment 
health assessments are conducted, and any identified medical issues are 
dealt with as soon as possible and in a compassionate manner. I support 
the current policy which authorizes medical benefits to our National 
Guard and Reserve servicemembers before, during, and after their 
activation. In addition, I fully support the Yellow Ribbon 
Reintegration Program that provides access to services and information 
for our National Guard and Reserve servicemembers and their families 
throughout the deployment cycle. I am aware that there are a number of 
State-sponsored programs that exemplify innovative and effective 
support programs for National Guard and Reserve members throughout the 
cycle. I am interested in learning more about these initiatives and 
finding ways to emulate and integrate these best practices on a wider 
scale. If confirmed, I look forward to working with Congress to ensure 
that our National Guard and Reserve servicemembers receive the benefits 
they deserve as they are activated in support of the defense of this 
Nation.

    10. Senator Shaheen. Dr. Rooney, I'm especially concerned about the 
unique challenges and factors that affect our returning National Guard 
members as they reintegrate back to their jobs, homes, and families. 
Oftentimes, our State's National Guard leadership has a better 
understanding of the unique support needed on a State-by-State basis, 
and--in some States like New Hampshire--they have developed their own 
effective full-cycle deployment support programs. Will you commit to 
working closely with individual States and their National Guard 
leadership in order to develop the most effective, first-class programs 
you mention in your testimony?
    Dr. Rooney. Yes. Understanding the unique needs and ensuring the 
effective reintegration of our National Guard and Reserve 
servicemembers back into their families, communities, and jobs is one 
of our most important responsibilities. The Department's Yellow Ribbon 
Reintegration Program has been effective at addressing many of the 
issues that confront our returning warriors and their families and I am 
aware of some of the successful programs developed by individual 
States. I am committed to working with the broad array of Federal, 
State, and community programs and services to most effectively meet the 
needs of our National Guard and Reserve servicemembers and their 
families.

                           SUICIDE PREVENTION

    11. Senator Shaheen. Dr. Rooney, each of the Services has reported 
increasing numbers of suicides in recent years. If confirmed, what role 
would you play in shaping DOD policies to help prevent suicides not 
only to Active Duty personnel, but also to National Guard and Reserve 
servicemembers and their families?
    Dr. Rooney. If confirmed, I would play a very active role. I have 
read the DOD Task Force Report on Suicide Prevention and found it to be 
thorough. I am impressed with the quality of the programs that each of 
the Services is currently employing and the active role that the 
Services' senior leaders play in the effort to prevent suicides among 
their respective members. There is still more that can be done, 
however. I believe that a single entity in the Department that would 
serve as a consistent policy and oversight authority DOD-wide, which 
would include the National Guard and Reserve, could disseminate 
information and interact with other departments, agencies, or 
organizations. This could also accelerate the implementation of key 
policy initiatives. If confirmed, I would work to ensure that the 
recommendations which could have the most impact, as outlined in the 
report, were implemented in a timely and effective manner.

    12. Senator Shaheen. Dr. Rooney, are you content with the programs 
as they are currently structured?
    Dr. Rooney. While I believe the current suicide prevention programs 
among the Services as a whole are effective, there is clearly more that 
can be done. In early 2000, the overall DOD suicide rate was well below 
the rate of a comparable sample of the civilian population by almost 
half. One of the most promising avenues currently being pursued is our 
increasing emphasis on resilience across the Department highlighted by 
programs such as the Army's Comprehensive Soldier Fitness (CSF). CSF is 
a structured, long-term assessment and development program to build 
resilience and enhance performance of every soldier, family member, and 
civilian employee. It incorporates the principles of Total Force 
Fitness that the Joint Chiefs of Staff have populated across the 
Services. These concepts have also been embraced by the National Guard 
and Reserve Forces so training has been modified to meet the needs of 
this population. I believe the Department's focus on getting out ahead 
of this issue will pay dividends in the future and go a long way 
towards building a formula for resistance, resilience, and recovery.

    13. Senator Shaheen. Dr. Rooney, what more can we do to reduce the 
number of these tragedies?
    Dr. Rooney. There are two other areas in which I believe we can 
make some progress. The first is data collection and standardization of 
reporting. I believe that more accurate and timely data can help us 
gain a further understanding of the complex issues and identify key 
leading indicators that we can use to take action before a potential 
suicide occurs. The second area is peer-to-peer programs that use the 
skills of our many veterans to directly interact with those in 
distress. I think this type of personal intervention program has 
significant potential to reach out to servicemembers particularly in 
the National Guard and Reserve where recent data has indicated a 
disturbing increase in suicide rates. Across the States, there are many 
great examples of National Guard and Reserve suicide prevention 
programs, self-assessment programs, and other web-based tools. I 
believe that it is incumbent upon the Department to ensure that we are 
aware of these State-led programs and share the information across 
States so that others can build on their successes.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    14. Senator Shaheen. Dr. Rooney, in a February 15 Federal class-
action lawsuit, more than a dozen female and two male current and 
former U.S. military servicemembers allege that incidents of sexual 
assault and misconduct were not adequately investigated or pursued. 
Sexual assault is an extremely grave concern, and all allegations 
should be taken seriously and investigated immediately. What is your 
response to this lawsuit and allegations that commanders are failing to 
respond appropriately to allegations of sexual assaults?
    Dr. Rooney. I cannot comment directly on current litigation. 
However, clearly, sexual assaults have no place in the U.S. Armed 
Forces. One sexual assault is one too many, and leadership throughout 
DOD has expressed this as well. However, when an assault does occur, 
victims are encouraged to come forward using one of the two reporting 
options available to get the help and services they need.
    The Department reviewed pre-command training and has proposed 
revised training standards for the Sexual Assault Prevention and 
Response (SAPR) policy that will be reissued this spring. In addition, 
all of the Service Chiefs and Secretaries of the Military Departments 
have aggressively championed the SAPR program at Service summits and 
through a variety of communication channels. We have and will continue 
to make it clear that commanders have a duty to take every allegation 
of sexual assault seriously, to see to the safety and care of the 
parties involved, and to hold offenders accountable in each and every 
case where evidence supports such action. There is progress being made. 
In cases where there was sufficient evidence for commanders to take 
action and the victim has chosen unrestricted reporting, the percentage 
of subjects who had court-martial charges initiated against them 
increased from 30 percent in 2007 to 52 percent in 2010.

    15. Senator Shaheen. Dr. Rooney, what specific levels and kinds of 
training are provided to officers and commanders in the field to 
respond in an appropriate way to allegations of sexual assault and 
misconduct?
    Dr. Rooney. DOD Instruction (DODI) 6495.02, SAPR Program 
Procedures, requires the Military Services to provide periodic, 
mandatory education at installation and fleet unit commands, during 
pre-commissioning programs and initial-entry training, and throughout 
the professional military education (PME) systems. All servicemembers 
are also required to receive SAPR training when they deploy to 
locations outside the United States that includes specific information 
addressing the location's customs, mores, and religious practices.
    The Department conducted Policy Assistance Team (PAT) visits in 
2009 to review commander training across the Services. Overall, the 
observed training met the requirements of DODI 6495.02, and the PATs 
found the training to be implemented in accordance with Department 
policy. However, the PATs recommended revisions to strengthen commander 
training by including concrete examples of supportive behavior to the 
program and the chance to practice skills or answer questions.
    The Services have also worked to ensure SAPR commander training is 
instituted. For example, the Army embedded SAPR training in 
professional military education at training institutions, including 
specific training support packages for pre-command courses and senior 
leaders. Work with Training and Education Command's Ground Training 
Branch produced an Interactive Media Instruction module on SAPR, 
targeting mid-level Marine Corps leaders who may be unable to 
physically attend annual training. The Navy briefs new installation and 
regional Commanding Officers on SAPR at the Navy's Senior Shore Station 
Leaders course a minimum of four times a year. The Air Force provides 
training to all new wing and group commanders five times a year and 
squadron commanders also receive training during their new commanders' 
orientation training. All of these meet DODI 6495.02 requirements.

    16. Senator Shaheen. Dr. Rooney, are the levels of training 
currently in place adequate to address this issue?
    Dr. Rooney. As my response to the previous question indicated, the 
Department conducted PAT visits in 2009 to review commander training 
across the Services. Overall, the observed training met the 
requirements of DODI 6495.02, and the PATs found the training to be 
implemented in accordance with Department policy. However, the PATs 
recommended policy revisions to strengthen commander training by 
including concrete examples of supportive behavior to the SAPR program 
and the chance to practice skills or answer questions. These revisions 
will appear in the reissuance of DODI 6495.02 scheduled for later in 
2011. However, the Services incorporated most of these revisions into 
their commander training programs in fiscal year 2010, as briefly 
described below:

        <bullet> In fiscal year 2010, the Army developed training 
        specifically for senior leaders. During fiscal year 2010, the 
        U.S. Army School of Command Preparation (Pre-Command Course) 
        trained 197 brigade commanders, 542 battalion commanders, and 
        195 command sergeants major. In addition, the Army Reserve 
        reported training 400 brigade and battalion commanders.
        <bullet> In fiscal year 2010, the Navy revised key SAPR command 
        personnel training to improve response to sexual assaults. Navy 
        installation Sexual Assault Response Coordinators (SARC) 
        reported training on roles and responsibilities for 1,807 
        commanders in fiscal year 2010, as well as training for 805 new 
        command SAPR program points of contacts, 484 new command 
        liaisons, and 681 new SAPR data collection coordinators.
        <bullet> Marine Corps provided command team training on SAPR 
        roles and responsibilities to 258 commanders in fiscal year 
        2010, which included how to perform commander-led discussions 
        during installation orientation for newcomers.
        <bullet> In the Air Force, senior pre-command training is 
        conducted at Air University, Maxwell AFB, AL. In fiscal year 
        2010, 122 wing and vice wing commanders and 270 group 
        commanders received SAPR training as part of this training. 
        Installation SARCs also provided SAPR-specific training to 
        3,342 squadron commanders and first sergeants.

    The Sexual Assault Prevention and Response Office (SAPRO) is 
currently working with the Defense Equal Opportunity Management 
Institute to develop questions for the Defense Equal Opportunity 
Climate Survey (DEOCS) that address SAPR. The DEOCS is a commander's 
management tool that allows him or her to proactively assess critical 
organizational climate dimensions that impact the organization's 
effectiveness. These questions are being formulated to specifically 
assess the extent of knowledge, impact of messaging, and levels of 
skill associated with SAPR policy within military units. While survey 
responses for individual units will be provided back to commanders for 
their use, Service-wide response trends will be analyzed for Service 
strengths and potential gaps in training effectiveness. These 
cumulative survey results will be used to improve DOD training 
requirements for both servicemembers as well as commanders. In 
addition, commander training will continue to receive attention by 
SAPRO in its program oversight role. The Services also review commander 
training as part of their Service Inspector General assessments of the 
SAPR program at military installations.

    17. Senator Shaheen. Dr. Rooney, what additional measures--if any--
would you recommend in order to more effectively respond to allegations 
of sexual assault in the field?
    Dr. Rooney. At this time, the Department is continuing to implement 
the recommendations of the Defense Task Force on Sexual Assault in the 
Military Services--many of which were legislated in the National 
Defense Authorization Act for Fiscal Year 2011. To date, 26 
recommendations have been completed or closed, 61 are in progress, and 
only 4 cannot move forward or are outside the Department's control.
    Some of the 26 recommendations that have been completed include:

        <bullet> Including the SAPR program in the Department Program 
        Objective Memorandum budgeting process to ensure a separate 
        line of funding be allocated to the Services.
        <bullet> Setting forth clear guidance to all commanders that 
        their leadership of their commands' SAPR program is a non-
        delegable responsibility.
        <bullet> Ensuring that Sexual Assault Forensic Examination 
        (SAFE) kits are either available or accessible in sufficient 
        time to preserve evidence.

    Some of the 61 recommendations that are in progress include:

        <bullet> Developing standardized SARC and Deployable SARC duty 
        descriptions in the SAPR DOD Instruction to ensure qualified 
        personnel are appointed to fill these critical positions and to 
        clarify roles and responsibilities.
        <bullet> Directing SAPRO to develop training policies and 
        exercise oversight of Military Service SAPR training programs.

                <bullet> Note: The Training Subcommittee of the Sexual 
                Assault Advisory Council developed training 
                requirements for servicemembers, commanders, senior 
                enlisted members, and first responders, and are 
                included in the SAPR policy scheduled for reissuance in 
                spring/summer 2011. A Working Integrated Product Team 
                has been established to discuss and address this 
                recommendation in regards to SAPR training for Equal 
                Opportunity Advisors.

        <bullet> Enacting a comprehensive military justice privilege 
        for communications between a victim advocate and a victim of 
        sexual assault.

                <bullet> Note: The Department has submitted a proposed 
                Executive order that would create a Victim Advocate 
                Privilege to the Office of Management and Budget (OMB) 
                for formal coordination. This Executive order is 
                currently under OMB Federal Agency review and signature 
                is expected in the coming months. Once signed, it will 
                become part of the Manual for Courts-Martial Military 
                Rules of Evidence and will be included in the Federal 
                Register as a policy change that will extend privileged 
                communication to include all victims of sexual or 
                violent offenses, including domestic violence in all 
                cases arising under the Uniform Code of Military 
                Justice.

    The four recommendations that cannot move forward or are outside 
the Department's control are:

        <bullet> Establish a Sexual Assault Response Team (SART) 
        protocol. At a minimum, this protocol should include that the 
        SART convene within 24 hours of a reported sexual assault.

                <bullet> Under further review. The Department altered 
                this recommendation to meet the intent. It is 
                impractical to mandate a SART meeting within 24 hours 
                of a reported sexual assault especially in a deployed 
                environment.

        <bullet> Ensure that victims of sexual assault in training 
        environments are provided confidential access to victim support 
        services and afforded time for recovery.

                <bullet> On hold. All victims are provided confidential 
                access to victim support services. However, further 
                analysis needs to be given to restricted reporting in 
                the training environment and the impact it may have on 
                an individual's progress. The Department developed an 
                action plan to implement this recommendation at a later 
                date.

        <bullet> Enact a law exempting Federal medical personnel from 
        State provisions requiring them to report sexual assaults to 
        civilian law enforcement to ensure all servicemembers have the 
        restricted reporting option.

                <bullet> This recommendation lies with Congress. 
                However, the Department is exploring options on how to 
                otherwise implement this recommendation.

        <bullet> Ensure the Services consistently implement the titling 
        standard.

                <bullet> On hold. Military law enforcement 
                organizations already adhere to DOD Instruction 5505.7, 
                ``Titling and Indexing of Subjects of Criminal 
                Investigations in the Department of Defense.'' The 
                Department developed an action plan to further 
                implement this recommendation at a later date.

    In addition to the above, we have received approval to conduct a 
survey of victim experience with the SAPR program. This survey is 
expected to produce a measure of victim satisfaction that can be used 
to assess program effectiveness. This survey is expected to be 
completed in the fall of 2011. Also, as the Task Force was extremely 
thorough in its review of the SAPR program, the Department continues to 
believe greater program effectiveness will be achieved through these 
recommendations.

    18. Senator Shaheen. Dr. Rooney, do you believe that reporting 
procedures and policies currently in place are effective?
    Dr. Rooney. The reporting procedures and policies enacted in 2005 
have been effective in bringing additional victims forward for 
assistance and care. While there are many victims that still do not 
report the crime, more sexual assault victims are coming forward to 
make a report and get assistance than at any time in the Department's 
history. However, as more information is gathered, current policies and 
procedures can continue to evolve, further improving victim response 
and prevention of sexual assault.
    Most sexual assaults in civilian and military communities alike go 
unreported because of victim concerns about the stigma associated with 
the crime and loss of privacy. However, civilian research shows that 
when victims report the crime, they are more likely to get care. In 
2010, Department policy, training, and messaging brought forward 105 
percent more victims than what was received in 2004. Restricted Reports 
now account for nearly 30 percent of all initial reporting and increase 
on average by about 8 percent each year. Unrestricted Reports have 
increased on average by about 5 percent each year. The Department 
believes that much of this increase in reports is due to its reporting 
policy and training. In 2010, more than 93 percent of Active Duty 
members received training on sexual assault reporting options, how to 
report, and to whom reports should be made.
    Increased reports of sexual assault do not mean that more assaults 
are occurring. Given the historical underreporting of sexual assault, 
the Department believes that its policies are providing the support 
necessary to bring a greater proportion of victims forward and to 
establish a culture of prevention. This belief is supported by 
Department research in 2010 that found that the incidence rate of 
sexual assault during the year prior to the survey decreased by one 
third since 2006, while the number of reports made by victims actually 
increased. As a result, the Department now has greater visibility over 
the sexual assaults that occur against servicemembers. We believe that 
greater visibility leads to improved victim response, more 
opportunities to provide care, and heightened offender accountability.

    19. Senator Shaheen. Dr. Rooney, what more can DOD do in order to 
improve its responsiveness to these serious allegations?
    Dr. Rooney. When the Department enacted its current SAPR policy in 
2005, it created new resources for victims and required specialized 
training for all first responders, including healthcare providers, 
investigators, military attorneys, and chaplains. Currently:

        <bullet> Over 700 SARCs and over 11,000 victim advocates were 
        trained in fiscal year 2010 to assist victims of sexual assault 
        all over the world.
        <bullet> All first responders get annual and other specialized 
        training on how to assist and treat victims, including unit 
        commanders who receive SAPR program training prior to taking 
        command.
        <bullet> Victims today have greater access to SAFEs, trained 
        personnel, and follow-up care than before the policy.
        <bullet> Most victims who make Unrestricted Reports of sexual 
        assault contribute to legal action against the alleged 
        offender. However, a few hundred victims each year decline to 
        participate in the military justice process.

    While the Department has improved its response system substantially 
by establishing a 24/7 response capability at every military 
installation worldwide, it must continue to improve the 
professionalism, capabilities, and resources of all who support victims 
seeking support. In addition, we must continue to create a culture 
where victims of crime are treated fairly by those with whom they 
serve. This includes our current policy of training all deployed 
personnel, including Guard and Reserve. These efforts take continuous 
time, attention, and resources, as well as patience and resolve, such 
that widespread victim support becomes a permanent feature of military 
culture. The Department believes that its current efforts to improve 
the confidentiality of victim communication with SAPR personnel sends 
an important message that victim privacy will be respected. In 
addition, ongoing efforts to teach commanders how to champion the SAPR 
program will further improve the professionalism of DOD's response to 
this crime. Ultimately, these efforts contribute to the Department's 
strategic priority of establishing a climate of confidence such that 
more victims will want to report the crime.

    20. Senator Shaheen. Dr. Rooney, sexual assault has been a 
particular risk in combat areas. In your advance policy questions, you 
suggested that you ``did not have enough information to make a detailed 
assessment'' about steps the Services have taken to prevent and respond 
to sexual assaults in combat zones. Can you provide a more thorough 
assessment of the steps the Services have taken in order to prevent and 
respond to sexual assaults in combat zones?
    Dr. Rooney. The Department has been diligent in addressing SAPR in 
combat zones and must be ready for any eventuality when it deploys 
people into these areas. Over the past 7 years, it has responded 
directly to the special circumstances that impact sexual assault in 
combat zones. A number of specific steps have been taken by the 
Department.
    In 2004, the Care for Victims of Sexual Assault Task Force was 
begun and its recommendations became the framework for the Department's 
SAPR policy enacted in 2005. Both of these efforts focused intently on 
the special circumstances that impact sexual assaults in combat zones. 
Deployable SARC and Unit Victim Advocate positions were created to 
ensure that SAPR services were available wherever servicemembers 
deployed. In addition, a special training requirement was developed to 
give pre-deployment training to individuals before they arrived in 
theater. This training addresses reporting procedures in theater, local 
customs and mores, and prevention skills.
    Following a 2008 GAO recommendation, the Department drafted changes 
to existing directives detailing responsibilities for the commanders of 
the combatant commands in deployed and joint environments.
    In 2009, the Defense Task Force on Sexual Assault in the Military 
Services visited forward deployed installations that support Operation 
Enduring Freedom and Operation Iraqi Freedom. The Task Force 
recommended that the Department improve access to qualified medical 
personnel to conduct evidence collection, especially in deployed and 
remote environments. The Services implemented this recommendation in 
fiscal year 2010. DOD is also in the process of fulfilling additional 
Task Force recommendations to improve the training of Deployable SARCs 
and establish Deployable Victim Advocate positions.
    In fiscal year 2010, the Department was tasked by Congress to 
report on the current availability and adequacy of comprehensive and 
proper medical care for victims of sexual assault in combat zones, as 
well as the availability and adequacy of post-mobilization medical and 
mental health care for victims of sexual assault in the Reserve 
components. The results of this review were forwarded to Congress in 
2010 and the three lines of action identified from this review are 
currently being pursued.
    OSD SAPRO and the Military Services continue to focus on these 
challenges. In fiscal year 2010, none of the Military Services reported 
any gaps in supplies, trained personnel, or transportation resources; 
reported any cases in which lack of an available SAFE kit or other 
medical supplies hindered care; or had any verifiable reports of 
victims for whom timely access of laboratory testing resources hindered 
care. The Marine Corps reported one case in which a victim had to be 
transported 90 minutes to undergo a SAFE and was addressing the matter 
at the end of fiscal year 2010. Department research since the SAPR 
policy was enacted in 2005 has found that, while most sexual assaults 
occur at one's home station, 25 percent of women and 27 percent of men 
indicated the unwanted sexual contact occurred while they were deployed 
to a combat zone or to an area where they drew imminent danger pay or 
hostile fire pay. This dictates that SAPR in combat zones must remain a 
focus of concern.
    Prevention of sexual assault in combat zones is challenging. 
However, the Department's strategy has been to teach skills and 
techniques that apply universally, regardless of location. The Services 
have all enacted programs that teach Active Bystander Intervention 
skills that enable members to identify situations that are at risk for 
sexual assault and safely intervene before the crime occurs. These 
programs mesh well with the battlefield ethos of ensuring the safety of 
fellow servicemembers, and the Department believes these strategies 
have contributed to a reduction of the sexual assault incident rate by 
one-third since 2006.
    When sexual assaults do occur, the delivery of comprehensive care 
to victims, wherever they are located, requires training care providers 
with the right skills and having the appropriate equipment at the right 
time and place. The unique and unpredictable circumstances in deployed 
environments can make it difficult for SAPR responders to deliver 
comprehensive and consistent care to victims. Tracking victim services 
accurately and consistently can also be challenging in deployed 
environments. Unit rotations and redeployment make it difficult to 
provide consistent assistance once a report has been made.
    The work on both prevention techniques and response effectiveness 
continues. Most recently, at the request of the Deputy Secretary of 
Defense, U.S. Central Command recommended changes to the policies and 
procedures of the OSD and Military Departments that they believed may 
hinder theater operations in a deployed environment. One of its 
recommendations was for the USD(P&R) to issue enduring guidance 
describing the SAPR services a combatant command must provide to 
contractor staff when contractors deploy with U.S. Armed Forces. OSD 
SAPRO proposed revisions to the SAPR Policy that will fulfill this 
recommendation when the SAPR Policy is reissued in 2011.

    21. Senator Shaheen. Dr. Rooney, what additional measures--if any--
will you recommend in order to more effectively prevent sexual assaults 
in combat zones?
    Dr. Rooney. DOD prevention programs appear to be working and have 
contributed, at least in part, to a decrease in sexual assaults 
occurring annually against Active Duty servicemembers. The incidence 
rate of sexual assault has decreased substantially, according to the 
Defense Manpower Data Center Workplace and Gender Relations Survey of 
the Active Duty:

        <bullet> In 2006, 6.8 percent of women and 1.8 percent of men 
        on Active Duty indicated experiencing some form of sexual 
        assault in the year prior to being surveyed.
        <bullet> In 2010, 4.4 percent of women and 0.9 percent of men 
        on Active Duty indicated experiencing some form of sexual 
        assault in the year prior to being surveyed.

    This decrease in incidence rate suggests that there were nearly 
one-third fewer incidents of sexual assault in 2010 than in 2006. The 
decrease also reflects the fact that prevention concepts are well 
understood throughout the military community:

        <bullet> 93 percent of Active Duty received prevention training 
        in 2010 (up from 88 percent in 2006).
        <bullet> 93 percent of Active Duty believe it their duty to 
        prevent harm to a fellow servicemember.

    The Department plans to continue its prevention training 
initiatives as well as its predeployment briefings to servicemembers 
traveling to combat areas about prevention and response procedures 
specific to the area. However, prevention programs used by the 
Department are universal--the concepts taught apply anytime, anywhere 
servicemembers are stationed. The Defense Task Force on Sexual Assault 
in the Military Services also recommended that each installation and 
operational commander assess the adequacy of installation measure to 
ensure the safest and most secure living and working environments. This 
includes installations and forward operating bases in combat zones. 
Implementation of this recommendation is ongoing, and, if confirmed, I 
would continue to support these initiatives.
                                 ______
                                 
               Question Submitted by Senator Kelly Ayotte

                 NATIONAL GUARD YOUTH CHALLENGE PROGRAM

    22. Senator Ayotte. Dr. Rooney, the National Guard Youth ChalleNGe 
Program (NGYCP) works to intervene in and reclaim the lives of at-risk 
youth by transforming their values and enhancing their skills, 
education, and self-discipline. The program has distinguished itself as 
an effective intervention in the lives of troubled youths. Despite this 
track record of success, I understand that the National Guard Bureau is 
considering a significant reduction in the national training program 
for the NGYCP. What is your assessment of the program and what is DOD's 
plan to fund this program going forward?
    Dr. Rooney. The NGYCP training and education program is a direct 
investment in the ChalleNGe program staff. The aim of the training and 
education program is to improve the performance of NGYCP staff and 
provide a cumulative effect of individual staff performance on cadet 
recruiting, retention, graduation rates, mentoring, and a positive 
placement following graduation.
    Course attendees consistently agree that the course offerings are 
of great value and benefit. Over 93 percent of the attendees report an 
increase in their performance and 85 percent of the attendees' 
supervisors report the performance for those who complete training and 
educational offerings as excellent. In summary, trained and educated 
staff members improve ChalleNGe program's overall performance in cadet 
recruiting, retention, graduation rates, mentoring, and positive 
placement following graduation.
    For fiscal year 2011, the Office of the Assistant Secretary of 
Defense for Reserve Affairs provided funding and budget guidance for 
the NGYCP to operate under the ongoing Continuing Resolution. This 
guidance stated that the priority during the continuing resolution 
period is to make the necessary funds available to fully support the 
ChalleNGe programs at the cost share percentage authorized under 32 
U.S.C. 509, and to provide funds to increase enrollment at current 
programs in States that have the fiscal resources to meet the cost 
share funding requirements. Travel and training for the NGYCP staff 
should be considered after core NGYCP requirements were funded. While 
under the continuing resolution, the Department is limited to fiscal 
year 2010 spending levels which are less than the fiscal year 2011 
President's budget request. If and when the continuing resolution is 
resolved, then we plan to review the entire fiscal year 2011 
appropriation for the NGYCP. If the amount appropriated supports the 
President's budget request, then additional funding to support training 
for the rest of fiscal year 2011 will be available.
                                 ______
                                 
    [The nomination reference of Dr. Jo Ann Rooney follows:]

                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 5, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jo Ann Rooney, of Massachusetts, to be Principal Deputy Under 
Secretary of Defense for Personnel and Readiness, vice Michael L. 
Dominguez.
                                 ______
                                 
    [The biographical sketch of Dr. Jo Ann Rooney, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                     Biography of Dr. Jo Ann Rooney
Education:
        <bullet> Boston University School of Management

                <bullet> September 1979-May 1983
                <bullet> B.S. Business Administration, Finance 
                Concentration, Summa Cum Laude, awarded May 1983

        <bullet> Suffolk University Law School

                <bullet> September 1984-February 1987
                <bullet> Juris Doctorate Degree awarded February 1987

        <bullet> Boston University School of Law

                <bullet> August 1989-May 1991
                <bullet> LL.M. (Master of Laws) in Taxation awarded May 
                1991

        <bullet> University of Pennsylvania, Graduate School of 
        Education

                <bullet> August 2003-May 2005
                <bullet> Ed.D. (Doctorate in Education) in Higher 
                Education Management
Employment Record:
        <bullet> Jewish Hospital & St. Mary's HealthCare 
        (uncompensated)

                <bullet> Member, Board of Trustees (2007-present)
                <bullet> Vice Chair (July 2008-present)

                        <bullet> System includes primary, ambulatory, 
                        in-patient psychiatric, inpatient 
                        rehabilitation center, et cetera

                           Approximately $1 billion in revenue

                        <bullet> Committees:

                           Environment of Care (2006-present)
                           Strategic Planning (2007-present)
                           Investment (2007-present)
                           Management Review (2008-present)
                           Transition Committee (2009-present)
                           Benefits Measurement Committee (2009-
                        present)
                           CEO Search Co-Chair (2009-present)

        <bullet> Regis University (uncompensated)

                <bullet> Member, Board of Trustees
                <bullet> 2004-present

                        <bullet> Executive Committee and Standing 
                        Committee Chair (2008-present)

        <bullet> Mount Ida College

                <bullet> President
                <bullet> July 2010-December 2010

        <bullet> Mount Ida College

                <bullet> Professor of Business Administration
                <bullet> July 2010-December 2010

        <bullet> Spalding University

                <bullet> President
                <bullet> August 2002-June 2010

        <bullet> Spalding University

                <bullet> Professor of Business Administration
                <bullet> August 2002-June 2010

        <bullet> The Housing Partnership (uncompensated)

                <bullet> Member, Board of Directors
                <bullet> 2003-June 2010

                        <bullet> Chair of the Board (June 2008-June 
                        2010)
                        <bullet> Chair Elect (2006-2008)
                        <bullet> Executive Committee-Treasurer (2005-
                        2006)

        <bullet> Emmanuel College

                <bullet> Adjunct Faculty
                <bullet> August 1994-August 2002

        <bullet> The Lyons Companies, LLC (and affiliated companies)

                <bullet> Corporate General Counsel
                <bullet> Chief Financial Officer (CFO)
                <bullet> Chief Operating Officer (COO)
                <bullet> Partner
                <bullet> September 1994-August 2002

        <bullet> Maselan & Jones, PC

                <bullet> Tax Attorney
                <bullet> July 1993-September 1994

        <bullet> Steams, Rooney & Associates

                <bullet> Partner
                <bullet> July 1992-December 1993

        <bullet> CIGNA Companies - IFSD

                <bullet> Staff Attorney
                <bullet> Technical Manager
                <bullet> June 1991-July 1993

        <bullet> Caprio Law Offices

                <bullet> Attorney
                <bullet> September 1990-May 1991

        <bullet> The Codman Company

                <bullet> Vice President

                        <bullet> Senior Property Manager
                        <bullet> Regional Marketing Director
                        <bullet> Director of Residential Market 
                        Research

                <bullet> June 1984-September 1990

        <bullet> Boston University Metropolitan College

                <bullet> Senior Lecturer
                <bullet> September 1986-December 1987
Honors and Awards:
        <bullet> Beta Gamma Sigma (1983)
        <bullet> Lock Honorary Society (1983)
        <bullet> Mayor's Citation for Community Service to the City of 
        Louisville, KY (2010)
        <bullet> Scholar House, Lucy Award (2009)
        <bullet> Business First, Partners in Health Care Award (2006, 
        2007, 2008, 2009, and 2010)
        <bullet> Today's Woman Magazine, Most Admired Woman in 
        Education (2006)
        <bullet> Business and Professional Women/River City, Woman of 
        Achievement (2006)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Jo Ann 
Rooney in connection with her nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jo Ann Rooney.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Personnel and 
Readiness.

    3. Date of nomination:
    Originally nominated: September 29, 2010; renominated: January 5, 
2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 23, 1961; Hazleton, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Pennsylvania, Graduate School of Education, August 
2003-May 2005, Ed.D. (Doctorate in Education) Higher Education 
Management, May 2005.
    Boston University School of Law, August 1989-May 1991, LL.M. 
(Master of Laws) in Taxation, May 1991.
    Suffolk University Law School, September 1984-February 1987, J.D. 
(Juris Doctorate), February 1987.
    Boston University School of Management, September 1979-May 1983, 
B.S. Business Administration, Finance Concentration, Summa Cum Laude, 
May 1983.
    West Hazleton High School, September 1975-June 1979, High School 
Diploma, June 1979.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    7/2010-12/2010, President of Mount Ida College, Newton, MA
    7/2010-12/2010, Professor of Business Administration, Mount Ida 
College, Newton, MA
    8/2002-6/2010, President of Spalding University, Louisville, KY
    8/2002-6/2010, Professor of Business Administration, Spalding 
University, Louisville, KY
    8/1994-8/2002, Adjunct Faculty, Emmanuel College, Boston, MA
    9/1994-8/2002, Corporate General Counsel/Chief Financial Officer 
(CFO)/Chief Operating Officer (COO)/Partner, The Lyons Companies, LLC. 
(and affiliated companies) - Waltham, MA

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Jewish Hospital Saint Mary's Healthcare (JHSMH), Louisville, KY - 
Vice Chair, Board of Trustees.
    Regis University, Denver, CO - Board of Trustees.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Bar Association Massachusetts Bar Association and 
Massachusetts Board of Bar Overseers
    Rhode Island Bar Association
    Florida Bar Association
    Beta Gamma Sigma Honor Society
    Member - Trustees of the Reservations (MA)
    Member - Boat U.S.
    Member - U.S. Rowing
    Member - Hull Lifesaving Museum
    Penn Alumni Association
    Suffolk University Alumni Association
    Boston University Alumni Association
    St. Paul Parish (Hingham, MA)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Beta Gamma Sigma
    Lock Honorary Society
    Today's Woman Magazine, 2006 Most Admired Woman in Education
    Business and Professional Women/River City, 2006 Woman of 
Achievement
    Business First, Partners in Health Care Award 2006, 2007, 2008, 
2009, and 2010
    Scholar House, Lucy Award 2009 (outstanding achievement supporting 
educational opportunities for women and families)
    Mayor's Citation for Community Service to the City of Louisville, 
February 1, 2010 (presented for distinguished and outstanding service 
to the City of Louisville)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Dissertation Spring 2005 - Navigating in a Building Sea of Change: 
Successful Growth Strategies of Two Private Higher Education 
Institutions, Author: Dr. Jo Ann Rooney.
    April 2009, Association of Governing Boards (AGB) National 
Conference on Trusteeship, ``Board Engagement in Major Academic 
Change,'' Prepared and Presented By: Dr. Jo Ann Rooney and Dr. L. Randy 
Strickland.
    May 2008, Kentucky Council on Post Secondary Education (CPE) 8th 
Annual Conference on the Scholarship of Teaching and Learning - 
Challenging Student to Think Critically and Learn Deeply, Keynote 
Address ``Boomers vs. X vs. Y: Educating Across Generations,'' Prepared 
and Presented By: Dr. Jo Ann Rooney.
    April 2008, Association of Governing Boards (AGB) National 
Conference on Trusteeship, ``Fostering Active Board Participation in 
Academic Governance,'' Prepared and Presented By: Dr. Jo Ann Rooney and 
Dr. L. Randy Strickland.
    February 2008, Kentucky Council on Post Secondary Education (CPE) 
Adult Learner Summit, ``Best Practices in Retention in Accelerated 
Programs,'' Prepared and Presented By: Dr. Jo Ann Rooney.
    December 2007, Commission on Colleges of the Southern Association 
of Colleges and Schools (SACS) Annual Meeting, ``Reaffirmation 101: A 
Case Study of Spalding University'' Prepared and Presented By: Dr. Jo 
Ann Rooney, Dr. L. Randy Strickland, Dr. Lynn Gillette, and Victoria 
Murden McClure.
    December 2007, Commission on Colleges of the Southern Association 
of Colleges and Schools (SACS) Annual Meeting, ``General Education 
Assessment ASAP'' Prepared and Presented By: Dr. Jo Ann Rooney, Dr. L. 
Randy Strickland, Dr. Lynn Gillette.
    November 2007, Council for Accelerated and Experiential Learning 
(CAEL) International Conference, ``Demonstrating the Effectiveness of 
Accelerated Programs'' Prepared and Presented By: Dr. Jo Ann Rooney, 
Dr. L. Randy Strickland, Dr. Lynn Gillette.
    November 2007, Commission for Accelerated Programs (CAP) Annual 
Meeting Plenary Session, ``Best Practices in Retention in Accelerated 
Programs'' Prepared and Presented By: Dr. Jo Ann Rooney, Dr. L. Randy 
Strickland, Dr. Lynn Gillette.
    May 2007, Educational Policy Institute RETENTION 2007, ``How to Use 
Assessment Data and Accreditation to Develop a QEP focused on Improving 
Students' Math Skills and Increasing Retention'' Prepared By: Dr. Jo 
Ann Rooney, Dr. L. Randy Strickland, Dr. Lynn Gillette.
    April 2007, N.C. State Undergraduate Assessment Symposium, ``From 
Assessing for Accreditation to Assessing for Improvement - The Case of 
Spalding University'' Prepared By: Dr. Jo Ann Rooney, Dr. L. Randy 
Strickland, Dr. Lynn Gillette.
    January 2006, CIC President's Institute, ``Restoring the Luster to 
Good Places: Institutional Turn-around Stories'' Prepared and Presented 
By: Dr. Jo Ann Rooney.
    November 2005, Commission for Accelerated Programs (CAP), 
``Teaching Accelerated Courses or Achieving Successful Outcomes with 
Adult Learners in Accelerated Courses'' Prepared and Presented By: Dr. 
Jo Ann Rooney.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    See attached list.

    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely mannerwhen requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Jo Ann Rooney.
    This 20th day of January, 2011.

    [The nomination of Dr. Jo Ann Rooney was reported to the 
Senate by Chairman Levin on March 15, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 26, 2011.]


  NOMINATION OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO THE 
          GRADE OF GENERAL AND TO BE CHIEF OF STAFF, U.S. ARMY

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Nelson, Udall, Hagan, Begich, Manchin, Blumenthal, McCain, 
Inhofe, Chambliss, Brown, and Ayotte.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; Jessica L. Kingston, research 
assistant; Gerald J. Leeling, counsel; Jason W. Maroney, 
counsel; Michael J. Noblet, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; John 
W. Heath, Jr., minority investigative counsel; Daniel A. 
Lerner, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Jennifer R. Knowles and Christine 
G. Lang.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Gordon Peterson, assistant to Senator Webb; 
Jennifer Barrett and Casey Howard, assistants to Senator Udall; 
Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Chad Kreikemeier, 
assistant to Senator Shaheen; Jeremy Bratt, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Clyde 
Taylor IV, assistant to Senator Chambliss; Charles Prosch, 
assistant to Senator Brown; Pam Thiessen, assistant to Senator 
Portman; and Grace Smitham, assistant to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nomination of General Martin 
Dempsey to be Chief of Staff of the Army.
    General Dempsey, we welcome you here today, along with 
members of your family. We look forward to your testimony and 
to your continuing service.
    America's Army today is as great as it has ever been in its 
235 years of service to our Nation. As we are reminded every 
day, this service continues to come with great sacrifice.
    Our Army remains globally committed and overstretched by 
nearly 10 years of continuous combat. The Army has met the 
challenges of the last decade with courage, determination, and 
professionalism for which they and all of us are justifiably 
proud and profoundly grateful.
    The challenges of the decade ahead, however, will be no 
less daunting. Over the next 4 years, under General Dempsey's 
leadership, the Army must deal with many enduring and new 
challenges. First and foremost, the Army must continue to meet 
the demand for trained and ready forces in support of 
operations in Afghanistan and, for a short while, longer in 
Iraq.
    Thankfully, the U.S. drawdown of forces in Iraq has begun. 
But, nearly 40,000 American soldiers remain there, contributing 
to the continued strain on our troops and their families.
    At the same time, over 60,000 Army troops are committed to 
operations in Afghanistan. Hard fighting will continue, even as 
we and our allies continue to build the Afghan security forces 
so that they may take more and more responsibility for their 
security.
    As adaptable and well prepared as our soldiers are today to 
support missions in Afghanistan and Iraq, the future beyond 
these operations holds real questions about what we will need 
the Army to do and how it will be structured to do it. In a 
speech to cadets at the U.S. Military Academy last week, 
Secretary of Defense Gates outlined what he considers the 
greatest challenges facing the Army as it takes on board the 
lessons of the last decade and prepares for the uncertain and 
dangerous world that lies ahead. Secretary Gates argued that it 
is unlikely that the Nation will commit large land forces to 
future conflicts and that the Army must ``confront the reality 
that the most plausible high-end scenarios for the U.S. 
military will be primarily naval and air engagements.'' He 
cautioned that in a strategic environment where we are unlikely 
to fight an enemy employing large armored formations the Army 
will find if difficult to justify the number, size, and cost of 
its heavy armored brigades.
    In a press interview last week, General George Casey, the 
Army's current Chief of Staff, seemed to go in a different 
direction when he said that he expects that over the next 10 
years we will still have 50,000 to 100,000 soldiers deployed in 
combat.
    We look forward to hearing General Dempsey's views on these 
perspectives and how they may shape the Army's plans and 
priorities in the coming years.
    In his speech at West Point, Secretary Gates also said that 
his first concern is how the Army will structure itself--that 
is, its size and the number and composition of its deployable 
units, such as combat brigades--how it will structure itself 
for the missions it is most likely to perform. In restructuring 
itself, the Army must find ways, he said, to maintain its hard-
won combat-proven current capabilities and invest in the right 
future capabilities within a fiscally constrained environment.
    Budget pressures are already being felt throughout the 
Defense Department. The Department's sufficiency initiative is 
intended to take funds away from less important or inefficient 
programs or activities and give them to higher, more relevant 
current and future modernization priorities.
    As the next Chief of Staff of the Army, General Dempsey 
will need to find ways to deal with the spiraling growth of 
personnel costs. In the face of these challenges, additional 
budget reductions, although still being debated, are more 
likely than not. We are interested to hear General Dempsey's 
assessment of the efficiency initiative and any ideas that he 
may already have for improving processes and systems to ensure 
that we get the most out of every dollar the Army spends.
    More directly related to its force structure, the Army 
needs to begin planning for the end strength reductions 
announced by Secretary Gates in January. The Army intends to 
begin drawing down 22,000 soldiers of temporary excess end 
strength, which was approved by Secretary Gates in the summer 
of 2009, and needs to do that between now and 2013. This 
reduction should not impact Army force structure, as this 
additional end strength was always temporary and intended to 
allow the Army to fill its deploying units and to end the use 
of stop loss that is holding soldiers beyond their enlistment. 
However, the Army also plans to reduce permanent end strength 
by another 27,000 people between 2015 and 2017, assuming 
security conditions are on track with current strategic plans.
    This second part of the drawdown plan should result in some 
reduction of the Army's force structure, likely including the 
elimination of some combat brigades. Although this reduction is 
not planned to begin until after 2014, which would be at the 
back end of General Dempsey's tenure as Army Chief of Staff, he 
will nonetheless be responsible, at a minimum, for the 
analysis, planning, and the initial implementation of these end 
strength and force-structure changes.
    The Army needs to rebuild its strategic depth--that is, the 
desired readiness in the nondeployed force--such that it is 
capable of responding to any unforeseen contingency. Strategic 
depth has been sacrificed over the last 10 years by the 
consuming force requirements of operations in Afghanistan and 
in Iraq. In order to gain and maintain the necessary higher 
readiness levels in our deployed forces, the readiness of our 
nondeployed forces has been at historic lows. Although the Army 
continues to meet the demand for counterinsurgency and support 
operations in Afghanistan, Iraq, and around the world, and 
despite the amazing resilience of our troops and their 
families, the Army remains stressed in many ways. Given the 
planned Army drawdown, budget pressures, and force demands for 
operations in Afghanistan, we continue to face substantial 
risk, should we need the Army to respond to another 
contingency.
    As the next Chief of Staff, General Dempsey will have the 
opportunity, as commitments in Iraq are concluded, to rebuild 
some degree of strategic depth. We're interested to hear 
General Dempsey's assessment of Army readiness and his views on 
the prospects for its improvements over time.
    The Army needs to continue to rationalize and stabilize its 
near- and long-range modernization strategies and programs. In 
general, major Army modernization efforts have not been 
successful over the last decade or more. But, over the last 2 
years, under the leadership of Vice Chief of Staff of the Army, 
General Peter Chiarelli, and the Under Secretary of the Army, 
Dr. Joseph Westphal, the Army has worked diligently, through an 
objective and detailed series of capability portfolio reviews 
that has started it on a path towards achieving rational, 
stable, and affordable Army modernization strategies and 
programs. As a result of this analytical process, the Army has 
terminated over-ambitious, redundant, or unaffordable weapons 
systems. We're interested to hear General Dempsey's assessment 
of this review process and to share with the committee what 
role he might play in sustaining the momentum achieved over the 
last 2 years.
    Finally, the Army must work as long and as hard as possible 
to deal with the human cost to soldiers and their families of 
the pressures and consequences of an Army in continuous combat 
for 10 years. A high priority of the Army's leadership over the 
last 4 years has been dealing with the stress of multiple 
combat rotations and long separations, the stress on soldiers 
and their families.
    The Department of Defense (DOD) and the Army set a goal 
that soldiers in units would have twice as much time at home as 
they would deployed, and that Army families would enjoy greater 
stability and less stress. Also, the Army has instituted 
significant programs for the improved care of our wounded 
soldiers and their families. Despite the efforts of the Army 
and leaders throughout the chain of command, heartbreaking 
incidents of suicide continue in the Active-Duty Force, and are 
now increasing in the National Guard and Reserves, as well. The 
committee is interested to hear General Dempsey's assessment of 
the Army's efforts in these areas.
    General Dempsey, the Nation could not be more proud of our 
Army, its soldiers, and their families. We are grateful for 
your leadership and for your willingness to assume 
responsibility for the readiness and the care of our 
magnificent Army. You are extraordinarily well qualified to 
undertake the position to which you have been nominated.
    We are also grateful for the service and sacrifices of your 
family in supporting you over the years. When we call upon you 
for your opening statement, we would be delighted if you would 
introduce your family who are with you here today.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    General, welcome, and congratulations on your nomination. 
I'm grateful for your extraordinary service and personal 
sacrifices throughout your career. I'm very appreciative of 
your family and the support they've given to you.
    Since the attacks of September 11, soldiers and their 
families have served under the stressful conditions of active 
combat for nearly 10 years as the Army has transformed itself 
into a modular expeditionary force while simultaneously meeting 
the demands of two wars. We're enormously grateful for the 
sacrifices soldiers and their families have made for their 
Nation, for their units, and for one another. The human costs 
of combat have been great. But, I applaud the efforts of senior 
military leaders in DOD and the Army to provide the best 
medical care possible to respond to the needs of wounded 
soldiers and to assist the families of all soldiers. If you're 
confirmed, there will be no higher priority than continuing 
this work.
    While the cost of defeating al Qaeda and the Taliban, and 
those who would attack us again if they could, has been great, 
Army leaders at every level can take pride in their 
accomplishments. Four years ago, how different the situation 
was in Iraq. I described it then as dire and deteriorating, and 
there were those who declared that the war was lost and we 
should accept defeat. I shudder to think of how the Middle East 
would look today and what condition the Armed Forces would be 
in today if the Army had not surged troops to Iraq and not been 
so decisive in providing the security needed to turn the tide 
there.
    Winning the current fights in Iraq and Afghanistan must 
continue to be the Army's priority, and the next Chief of Staff 
must ensure that soldiers have what they need to succeed. As 
Chief of Staff, you will have to develop and justify your 
vision of what the Army should look like in the future.
    In his speech last week to the cadets at the U.S. Military 
Academy, Secretary Gates expressed his predictions about what 
their future service in the Army would look like. He discounted 
the likelihood of another land campaign like Operations Iraqi 
Freedom or Enduring Freedom, and forecast an Army, in coming 
years, that would most likely engage in short-duration, low-
intensity operations engaged in counterterrorism, rapid 
reactions, disaster response, and stability security-force 
assistance missions. I'm interested in how much you share 
Secretary Gates' views.
    The budget plan for the Future Years Defense Plan through 
2016 also calls for reducing Active-Duty strength by 47,000 
soldiers. I'd like your views on whether such manpower 
reductions are consistent with the Army's focus on full-
spectrum operations and readiness to conduct missions of any 
kind.
    Debate about the future missions of the Army is a necessary 
predicate for the weaponry the Army will need to succeed. I am 
deeply concerned by the Army's inability to manage successfully 
its major defense acquisition programs; most prominently, the 
Future Combat System (FCS). With the arguable exception of the 
Stryker, the Army has not successfully brought a major system 
from research and development, through full production since 
the so-called ``big five,'' the Abrams tank, Bradley fighting 
vehicle, Patriot missile, and Blackhawk and Apache Helicopters, 
in the late 1970s and early 1980s. To my knowledge, the Army 
has yet to negotiate the termination cost for the FCS contract. 
As such, the total cost of FCS has yet to be fully determined. 
Unfortunately, this failed 11-year investment in a 
``modernization program'' has served only to set the Army and 
the American taxpayer back. I'd be interested to hear from you 
how we intend to improve the management and oversight of major 
Army acquisition programs so that something like FCS doesn't 
happen again.
    On balance, the Army can take great pride in its record of 
accomplishment, particularly those of its troops and its 
transformation from a garrison force to an expeditionary, 
mobile, and highly adaptable fighting force. Many challenges 
lie ahead, and the fiscal environment we are in will be very 
unforgiving if we repeat the mistakes of the recent past.
    I thank you for your willingness to take this assignment 
on, and look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We're delighted that Senator Reed is going to be 
introducing our nominee.
    You couldn't have anyone better to be introducing you. I 
want you to know that, General. You're very well served by the 
person we're going to hear from next.
    Senator Reed.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Senator Levin, Senator 
McCain, my colleagues on the committee.
    It is a pleasure and a privilege to have the opportunity to 
formally introduce General Martin Dempsey to this committee as 
we consider his nomination as the 37th Chief of Staff of the 
U.S. Army.
    I recognize that many, if not all, of you have had the 
opportunity to meet and to work with General Dempsey in the 
various challenging assignments he's held in recent years in 
our Army, particularly his command of the 1st Armored Division 
in Operation Iraqi Freedom, taking a force into the country and 
then being suddenly told to stay longer than expected, and 
doing it with superb professionalism; and then his succeeding 
command as the leader of the Multi-National Security Transition 
Command in Iraq, responsible for the training, support, and 
establishment of the Iraqi security forces.
    Throughout his more than 36 years of Active service, 
General Dempsey has demonstrated the professional skill and 
personal character to lead our Army in challenging times. Our 
soldiers are engaged in two major operations in Iraq and 
Afghanistan. The Army has been engaged, since 2003, in the 
longest sustained combat operations in this history of our 
country. General Dempsey recognizes this. He also recognizes 
that his first priority is to support our soldiers in the 
fight. This support requires the continued training, equipment, 
and leadership that has made our Army the superb force that it 
is today.
    Support for our soldiers also means support for their 
families, and General Dempsey knows about Army families. 
Throughout his career, his lovely wife, Deanie, has been 
serving with him, by his side, and together they have raised 
Major Christopher Dempsey, who's currently assigned to the 
Department of History at the U.S. Military Academy at West 
Point, and daughters, Megan and Caitlin, both veterans of the 
U.S. Army. The Army is indeed a family affair with the Dempsey 
family.
    But, General Dempsey also has the daunting challenge of 
shaping a force for the future in a time of increasingly 
constrained budgets. Dynamic change in technology, in 
international economic forces, in international institutions--
indeed, even the notion of national sovereignty--all of these 
forces, and more, will shape the future and must, indeed, shape 
the Army. They must be responded to with innovative and 
creative proposals, and I am absolutely confident that General 
Dempsey will meet these challenges as we go forward.
    He is superbly prepared to provide this critical leadership 
at this challenging moment. I would urge my colleagues to 
confirm him speedily so he can assume these responsibilities.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator Reed.
    A couple of our colleagues have asked their statements be 
submitted for the record, I will insert them here.
    [The prepared statements of Senator Begich and Senator 
Gillibrand follow:]
               Prepared Statement by Senator Mark Begich
    General Dempsey, the Small Business 8(a) Business Development 
Program is a vital economic tool for Alaska Natives, Native Hawaiians, 
and Native American Tribes in the lower 48. This program provides for 
education opportunities, cultural preservation, infrastructure 
development, and other opportunity for tribal members. The program is 
directly tied to the U.S. Government's commitment and policy of the 
right of self-determination to our first people.
    Recently, the 8(a) program has unfairly been subject to criticism. 
Although some participants have pushed the limits of the opportunity 
provided to them, the majority of companies in the program have sound 
business practices and offer critical services and advantages to the 
Government. Additionally, to address loopholes that undermine the 
intent of the program, the Small Business Administration recently 
released the most comprehensive and thorough regulatory reform on the 
8(a) program in its history.
    A few 8(a) Army contracts have been subject to public scrutiny and 
criticism in the press. Addressing criticism, valid or not, can result 
in restrictive guidance undermining the 8(a) program, or a reluctance 
by contracting officers to contract with 8(a) Alaska Native 
Corporations, Native Hawaii Organizations, and tribal entities. 
However, the program itself is still a valid and important tool for 
Native peoples and for the Government.
    Collectively, contract performance for the services rendered by 
8(a) companies to their customers, including the Army, has been 
commendable. In addition, the contracting flexibility provided to the 
Army under this program has allowed it to address requirements for 
services in a timely and inefficient manner that could not otherwise be 
achieved.
    If confirmed, I request you continue to utilize this program to 
contract for appropriate services required by the Army.
                                 ______
                                 
          Prepared Statement by Senator Kirsten E. Gillibrand

    Admirals Row, built in the 19th century, consists of 11 brick 
buildings built to house high ranking Navy officers located in 
Brooklyn, NY. The buildings, which are architecturally distinguished 
and of historical importance, have been left mostly abandoned since the 
mid-1970s and are severely deteriorated and in dire need of repair. The 
Army National Guard currently controls the property, and has identified 
the Timber Shed and Building B for preservation. The Brooklyn Navy Yard 
Development Corporation (BNYDC), the non-profit corporation that 
manages the Navy Yard under a contract with New York City, has 
expressed its willingness to execute an emergency stabilization of 
these buildings prior to the property transfer between the National 
Guard and the city. The BNYDC would like to begin construction on the 
buildings at Admirals Row immediately, but is currently prohibited from 
starting work because the National Guard will not allow access to the 
site.
    I have written to Secretary McHugh to request that the Army take 
quick action to allow emergency stabilization of the Timber Shed and 
Building B in advance of the planned property transfer, while also 
completing the transfer expeditiously. I appreciate Colonel Presnell's 
response to BNYDC with a promise to expedite the environmental review. 
I want to reiterate my belief that the Army's flexibility in allowing 
the BNYDC to stabilize the buildings coupled with an expeditious review 
and transfer is in the best interest of both the Defense Department and 
the local community.

    Chairman Levin. General Dempsey, the committee has a series 
of standard questions that we ask all of our nominees, and I 
will ask them of you now.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Dempsey. I have, Senator.
    Chairman Levin. Do you agree, when asked to give your 
personal views, even if those views differ from the 
administration in power?
    General Dempsey. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dempsey. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Dempsey. I will, Senator.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dempsey. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Dempsey. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Dempsey. I do, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such document?
    General Dempsey. I do.
    Chairman Levin. Thank you, General Dempsey.
    Now we're ready for your statement.

 STATEMENT OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF, U.S. ARMY

    General Dempsey. Thank you, Chairman Levin.
    I do this at my great peril, but I'd like to stray from my 
prepared remarks, just at the beginning here, because I was 
struck by the, I hope, intended symbolism of having Senator 
Reed sit next to me during his introduction, because I've 
always felt as though this body, in particular, was a wingman 
of the Army's. Senator Reed has always been a great wingman; 
that is to say, someone who watches out for you and who helps 
you see yourself in ways that perhaps you're unable to see. I'd 
like to have that relationship with this committee and with the 
Congress of the United States, because, Mr. Chairman, I think 
you and the Ranking Member have mentioned the challenges we 
have before us, and articulated them very well, and we're going 
to have to work together to settle those.
    Chairman Levin. We look forward to working with you, 
General, on that basis, as a matter of fact. Very eloquently 
and aptly put.
    General Dempsey. Thank you, Mr. Chairman.
    Thank you for the opportunity to appear before this 
committee today in support of my nomination as the 37th Chief 
of Staff for the U.S. Army.
    Senator Reed, thank you again, and the members of this 
committee, for allowing me to be part of this process. Thank 
you for your unwavering support and commitment to the soldiers 
of the U.S. Army and their families.
    I've known some of you for a decade or more, and I've met 
some of you only recently, in the last few days. I always 
welcome the chance to discuss our national security challenges 
with you, and I sincerely admire what the members of this 
committee and your professional staffs have done to support 
those who courageously serve and are resilient in the service 
of their Nation.
    I'd like to take a moment, as you suggested, Chairman 
Levin, to introduce my wife, Deanie, to you. I know she 
appreciates your kind words about her, too. We've been married, 
as you noted, for almost 35 years. She has joined me in 
commissioning all three of our children as officers in the 
Army, and she's sent two of them off to war. One of them, our 
son, Major Chris Dempsey, is here today.
    Deanie and I have built our lives both within and around 
the Army, and I can report to you that there is no greater 
champion for soldiers and their families than Deanie. If I am 
confirmed, the Army will receive the great gift of her 
continued service with, I must be honest, the occasional break 
to care for our three grandchildren, and soon-to-be five 
grandchildren. She is my hero, and I love her for many reasons, 
not least of which is her shared commitment to the U.S. Army.
    I'd also like to congratulate my predecessor, General 
George Casey, who will soon complete 41 years of distinguished 
service to our Nation.
    I've always considered service in the Army to be a 
privilege. That privilege is even more apparent when our way of 
life is challenged as it has been over these past 10 years. I 
sit before you today with confidence that whatever challenges 
confront us in the future, your Army will respond with the same 
courage and resolve that has characterized it for the past 235 
years.
    You have seen firsthand the superb performance of our 
soldiers in Iraq and Afghanistan. Less visible, but equally 
important, are the contributions of soldiers currently deployed 
in over 150 nations around the globe. These men and women are 
fulfilling tasks assigned to us in the National Security 
Strategy to seek to prevent conflict by representing our Nation 
and its values and by increasing the capabilities of our 
international military partners. They are Active, Guard, and 
Reserve. We are truly one Army, and we serve America proudly.
    Here at home, we partner with local communities, schools, 
and colleges. Each year, 75,000 of America's sons and daughters 
make a commitment to leave their homes and serve their Nation 
in the uniform of the U.S. Army. In return, we make a 
commitment to develop them as soldiers and as leaders. As 
Commanding General of U.S. Army Training and Doctrine Command 
(TRADOC), I've met with soldiers serving in the very center and 
at the very edges of freedom. I've met with their families, 
living both at home and abroad. I've met with our wounded and 
with their families.
    They are inspirational. They understand the challenges that 
we face as an Army and as a Nation. Their expectations of us 
are as simple as they are profound. They trust that we will 
provide the resources necessary for them to succeed in the 
fights in which we are currently engaged, and they trust that 
we will have the wisdom and resolve necessary to prepare them 
for the missions unknown to us today, but which surely await 
us.
    If you confirm me as the Army's 37th Chief of Staff, you 
can be sure that I will act to earn their trust every day. I 
will work to match their drive, their sacrifice, and their 
resolve. I will partner with the Congress of the United States, 
and this committee in particular, to ensure we remain worthy of 
the title ``America's Army.''
    Mr. Chairman, I want to assure you and the members of this 
committee that I understand the gravity of the task at hand. 
The position to which I have been nominated carries daunting 
responsibilities. I embrace the challenge.
    I want to thank President Obama, Secretary Gates, and 
Secretary McHugh for their trust and their confidence in 
nominating me. I want to thank you for the opportunity to 
appear before you today.
    I look forward to your questions.
    Chairman Levin. Thank you very much, General.
    Let's try a 7-minute first round for questions.
    I made reference to Secretary Gates' West Point speech, and 
quoted from it. I wonder if you could give us your reaction to 
his remarks, both the ones that I quoted and any other part of 
that speech that you might like to refer to.
    General Dempsey. Thank you, Mr. Chairman.
    Secretary Gates, in his speech at West Point, pulled 
together themes that he's been discussing with us for some 
time. It's an aggregate, if you will, of the professional 
conversations we've had about the current state and the future 
state of our Armed Forces. It's not a conversation he's had 
uniquely with the Army. He's challenged the other Services, as 
well.
    It seems to me that, in terms of the reference you made to 
his discussions about the heavy force, in particular, what he's 
challenging us to do is to reconsider the way we've 
proportioned our force--the force mix, if you will--and 
determine if that's the force mix that best suits our needs 
today. I don't think he's predisposed to the answer to that 
question. I think he's encouraging us to confront it. As we 
confront it, I think he is challenging us equally to look at 
the institution that supports it and the leaders that we 
develop. My personal, professional judgment, where I sit today, 
in TRADOC, is that we have to become an institution that 
accepts adaptation as an imperative. It has to be part of our 
fabric. Where that takes you is, we might develop an Army 
suitable for 2020 that, consciously, we know will not be 
exactly the Army we need in 2030, because the current and 
future operating environments, as we anticipate them, will 
require an institution that provides what the Nation needs when 
it needs it. I think that the key to that, actually, is the 
development of leaders; so, leader development is job one. 
Systems and processes have to become more responsive to change 
and allow for the introduction, laterally, of changes to 
technology, for example. Organizations, which always change in 
our Army, have to be prepared and embrace change. I think we 
understand the signal we're receiving, and I think we can find 
the answer.
    Chairman Levin. One of the points that he made at West 
Point was his identification of ``ongoing and prospective 
requirements to train, equip, and advise foreign armies and 
police.'' That raised the question, he said, as to how the Army 
should ``institutionalize security force assistance into the 
Army's regular force structure and make the related experience 
and skill set a career-enhancing pursuit.'' He flagged the 
importance of the Army's doctrine on this new advise-and-assist 
brigades, which he said have played the role that they've 
played in the last couple years, which is a ``key role in the 
successful transition to full Iraqi security responsibility.''
    Now, building the security forces of foreign forces has 
traditionally been a Special Operation Forces mission. But, in 
both Iraq and Afghanistan, our general-purpose forces have been 
performing that mission for some time, in the form of those 
Advise and Assist Brigades. I'm wondering what your reaction is 
to the possibility of adding that as a required fundamental 
capability for general-purpose forces, which would require 
additional education, training, and readiness challenges for 
the Army to meet.
    General Dempsey. Yes, thank you, Mr. Chairman.
    I do think it becomes a core competency for our force in 
the future, as part of our effort to prevent conflict. I think 
that we've made some dramatic and very successful adaptations 
at the tactical level in understanding what it takes to partner 
with indigenous forces and partners. I think where we probably 
have room to grow and room to learn is in how we partner with 
institutions, how we accomplish what we formerly called 
security sector reform at the ministerial level, because it's 
not simply enough to partner with international partners at the 
tactical level; we have to ensure that they have the systems 
and the institutions that support them so they become viable 
partners into the future. I do think, if confirmed, that will 
be an area that I would pay particular attention to.
    Chairman Levin. There were plans, some years ago--when 
Secretary Gates became Defense Secretary, there had been plans 
to restation two Army brigades currently in Europe back to the 
United States. Those plans were put on hold when Secretary 
Gates came into office. The Department has now started a global 
posture review to reexamine the purposes, locations, and costs 
of U.S. forces stationed around the world, including the Army's 
combat brigades in Europe.
    Can you give us your understanding of the status of that 
review--I believe you're a part of that review, maybe a major 
part of it--and give us the status of the review and whether or 
not that will include an assessment of Army forces stationed in 
Europe, as to whether we should continue them in the current 
numbers and configurations that they're at?
    General Dempsey. Yes, sir. The study that you refer to, of 
which TRADOC is part, is essentially the force mix and force 
design--how many types of each brigade and what are the 
internal capabilities of them. We are involved in that.
    We haven't made any decisions, because the recent 
announcement of the additional 27,000 has put us back to the 
drawing board, if you will, on trying to understand the 
implications of that and the assumptions we're making about the 
demand on us into the future.
    But, to your point, if I could knit your previous question 
and this one together, the issue at hand for us will be, 
whenever we decide our force structure and its location, is, 
what purpose does it serve, where it sits? I'm a product of 12 
years of the U.S. Army-Europe, and found great benefit in being 
immersed into that culture. I think that there will always be 
reason for us to have a forward-deployed force, both for the 
benefit of our partners, but also for our own benefit. But, I 
think that the size of that forward presence will be reexamined 
as we determine what our future force structure will look like.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Again, congratulations, General Dempsey.
    Prior to the Iraq war, there was a no-fly zone imposed as a 
result of the cease-fire agreement. That went on for, I 
believe, a decade. Isn't that correct?
    General Dempsey. Yes, sir.
    Senator McCain. We did not take out the Iraqi air defenses?
    General Dempsey. Actually, we did, Senator.
    Senator McCain. From all parts of Iraq?
    General Dempsey. This predates my time at U.S. Central 
Command (CENTCOM). I was back in Germany, as it turns out 
during those years.
    Senator McCain. Yes.
    General Dempsey. But, I do recall working on the Joint 
Staff. When there would be issues with Iraqis positioning air 
defense elements south of the latitude that we had established, 
we would attack them.
    Senator McCain. But, we didn't take out all Iraqi air 
defenses?
    General Dempsey. No, sir.
    Senator McCain. Our aircraft were within range of those 
defenses?
    General Dempsey. When they moved into a position that they 
were in range, we would attack them.
    Senator McCain. That wasn't too hard to do.
    General Dempsey. Not being part of it, Senator, I can't 
speak to the difficulty of it.
    Senator McCain. Have you seen media reports that Gaddafi is 
using some of his air assets to attack, or attempt to attack, 
the pro-revolutionary forces?
    General Dempsey. I have, Senator.
    Senator McCain. You have seen that. You might tell Admiral 
Mullen that you've seen that.
    Do you believe that the Arab League and the people on the 
ground in Libya that are being attacked by Gaddafi's air assets 
should be listened to when they are asking for us to see that 
it is stopped?
    General Dempsey. I think that they will have voice, and are 
having voice, inside the government.
    Senator McCain. As a veteran of several conflicts, isn't it 
true that if you tell the enemy that if they take certain 
measures, there will be reprisals--what I'm trying to say, if 
we tell the Libyans and Gaddafi that we are imposing a no-fly 
zone, that is a strong deterrence to many of their pilots as to 
whether to fly or not. We've already seen pilots defect. We've 
already seen a couple of them land in Malta. Wouldn't that have 
a certain deterrent effect on them, psychologically?
    General Dempsey. Deterrence is always one of the options 
that we should have available to the national command 
authority. I will say, of course, that my own personal 
experience is, sometimes the way our potential adversaries 
interpret our deterrent actions is not exactly as we've planned 
it. But, deterrence is a valid option.
    Senator McCain. The perception of Libyan pilots who now 
take off and land and attack pro-revolutionary forces might 
prove rather cautionary to them if they think that we will stop 
them and shoot them down if they carry out those missions.
    General Dempsey. We have the finest air force in the world, 
Senator.
    Senator McCain. May I just say, personally, I don't think 
it's loose talk on the part of the people on the ground in 
Libya, nor the Arab League, nor others, including the Prime 
Minister of England, that this option should be given the 
strongest consideration.
    I'm very concerned about Wikileaks. Almost daily, we see 
some additional revelation of the Wikileaks situation. First of 
all, how did this happen? Second of all, who has been held 
responsible for this greatest disclosure, frankly, of 
classified information in the history of this country?
    General Dempsey. Senator, I can't answer the question, 
``How did it happen?'' I have been made aware that there's an 
ongoing--you know it as a 15-6 investigation--essentially, a 
commander's inquiry--commissioned by the Secretary of the Army, 
to answer that exact question. I know that the individual 
responsible for the investigation has had a series of meetings 
with Secretary McHugh. I'm looking forward to learning more 
about that, as well.
    To your point about the protection of information, I think 
that this will be a wake-up call for us. We have to go forward, 
but we have to balance our protection of information with the 
competing requirement to continue to collaborate with 
interagency partners on information so that we can be as agile 
as the networks that we fight.
    Senator McCain. To my knowledge, no one besides Private 
First Class Manning has been held responsible for Wikileaks. Is 
that correct?
    General Dempsey. To this point, that is correct, Senator. I 
don't know that that'll be the outcome.
    Senator McCain. One of your major responsibilities will be 
the issues of acquisition. A recently completed Decker-Wagner 
Army acquisition review paints a rather gloomy picture. 
According to this report, between $3.3 and $3.8 billion of the 
Army's research and development budget has been wasted per 
year, since 2004, on programs that were subsequently canceled.
    Do you believe those figures to be accurate?
    General Dempsey. I do, Senator.
    Senator McCain. Let me specifically mention one program to 
you, as I conclude my questioning, that I don't understand, and 
maybe you could provide us with some written response, because 
you may not know a great deal about it. But, the title is, 
``U.S. to spend $800 million as it leaves MEADS program.'' It 
goes on to say, ``Over the next 3 years, the U.S. Government 
plans to spend more than $800 million on a missile defense 
proof of concept that Army Secretary John McHugh has little 
confidence will even work.'' In this article, it says the 
termination costs would be very high. I still don't quite 
understand why we would negotiate a contract that, if a 
contractor fails to meet its goals and we have to cancel the 
contract, we have to pay off the contractor. Do you know very 
much about this particular program, General?
    General Dempsey. I do not, Senator.
    Senator McCain. Good. Maybe you could provide us with a 
written response after you are sworn in.
    But, this kind of thing--I don't think there are stronger 
advocates in support of our defense spending and our need to 
equip and train our men and women who are serving, but when our 
constituents read stories like this--and it may not be totally 
accurate--but, when they read stories titled, ``U.S. to spend 
$800 million as it leaves the MEADS program,'' I think they 
deserve better, or at least a better explanation, at best.
    [The information referred to follows:]

    The Medium Extended Air Defense System (MEADS), Memorandum of 
Understanding (MOU), not the contract, established the terms by which 
the international parties negotiated that the withdrawing partner would 
bear the responsibility for contract termination. These terms on 
withdrawal are normal for international agreements. According to the 
MEADS MOU that we have with Italy and Germany, the Department of 
Defense (as the withdrawing participant) would be required to pay all 
contract modification or termination costs that would not otherwise 
have been incurred but for its decision to withdraw, up to its share of 
the cost ceiling for its financial contributions. The purpose of 
including this provision, during the negotiations, is to make it more 
difficult for a country to withdraw from a multilateral agreement--a 
withdrawal that could really leave the remaining countries in a 
difficult and costly position. This provision provides all MOU 
participants with positive incentive to stay in MOU programs that have 
awarded substantial MOU-related contracts to implement the MOU scope. 
This provision is value neutral in its applicability and protects the 
United States (normally the largest partner nation) from potential 
withdrawals by other partner nations that could have major negative 
impacts on the United States.
    If the United States unilaterally terminated its participation in 
the MEADS program, we estimate our cost would be as high as the MOU 
ceiling amount of $846 million for the United States. Allowing the 
contractor to proceed to ``Proof of Concept'' avoids the expense of 
termination and allows the best use of remaining funds while maximizing 
return on investment.
    Conversely, if the United States and its partners pursue the 
proposed Proof of Concept effort using the remaining MEADS MOU funding 
our cost would be limited to the current MOU commitment of $804 
million. In addition to saving money, the United States and its 
partners would derive substantial benefit in terms of hardware, 
software, or intellectual property deliverables from the MEADS prime 
contractor. This would allow Germany and Italy to proceed into 
production and provide the United States with an expanded array of 
future choices with regard to future Air and Missile Defense system-of-
systems capability.

    Senator McCain. I thank you, General.
    Thank you, Mr. Chairman.
    General Dempsey. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator McCain.
    General, you, then, will supply an assessment of that 
program and of that issue that Senator McCain has just raised, 
after you are confirmed.
    General Dempsey. If I could clarify. The Senator said, 
``when sworn in.'' So, sometime after April 11, I will 
dutifully respond.
    Chairman Levin. I will stand corrected.
    General Dempsey. Thank you, sir.
    Chairman Levin. After you are sworn in, then we would 
expect an answer.
    General Dempsey. Actually I should say, ``if I'm sworn 
in.''
    Chairman Levin. You are correct.
    General Dempsey. Yes, sir.
    Chairman Levin. We assume that. I'm glad you also do not 
assume that.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    I think it's a good assumption.
    I thank you, General Dempsey, for your career of service. 
It has impressed me, as I've had the honor to get to know 
people in our military, particularly in Iraq and Afghanistan in 
recent years, that the quality of leadership, really, from top 
down, is quite remarkable. I would set--and I particularly mean 
it in your case--the level of capacity against leadership in 
any other sector of our society. We're very lucky to have had 
you rise to the position that you've been nominated for by the 
President. I look forward to working with you in the years 
ahead.
    I wanted to ask you one question about the ongoing 
situation in Libya, following up with what Senator McCain said. 
I, too, have felt that the no-fly zone ought to be under active 
consideration, premised on a request from the opposition, once 
it established a provisional government, which now seems to 
have happened. Second, of course, hoping that we would have 
allies in that effort.
    I want to ask you about another alternative here, because 
this is an ongoing situation and its outcome will determine, I 
think, not only how the lives of the people of Libya are, and 
whether more blood is shed there at the hands of a truly 
maniacal leader, Gaddafi, but also has an impact on the 
succession or transition to democracy in the rest of the Arab 
world. That's why we're all focused on it.
    Another alternative, obviously, is to try to help the 
opposition and stop Gaddafi, is to provide them with air 
defense systems, and train them in those systems. The question 
of whether we do that is not what I want to ask you about, 
because that has to be determined at a higher level. But, am I 
correct in saying that the Army has had experience in training 
militaries around the world in the use of air defense systems?
    General Dempsey. Yes, Senator. If I can respond to that, 
recalling my experience as the Acting CENTCOM Commander, the 
answer to that is yes.
    Senator Lieberman. Right. While we're considering the no-
fly zone--and I hear all the concerns about how it would be--
how difficult it would be to implement another alternative that 
we might provide the Libyan opposition with the capacity to 
defend themselves from Gaddafi's aircraft. I assume that, if 
directed to do so, the Army would be prepared, in your opinion, 
to carry out that mission, to train the opposition in Libya, to 
Gaddafi, in the use of better air defense systems.
    General Dempsey. Internal to TRADOC, we do have coursework 
and expertise in air defense.
    Senator Lieberman. Thank you.
    You're not going to be surprised to hear that I'm concerned 
about the proposals to reduce the Army's end strength, although 
when Secretary Gates was before us, and when he made the 
announcement, it was very clear that this is conditions-based, 
depending on what the demands on the Army are, as we head into 
2015, which is the date when the reduction is supposed to 
occur. All of us are haunted by the phrase ``hollow Army''. We 
don't want to go through that again. We fought hard, side by 
side, in the spirit that you suggested earlier, to increase the 
end strength.
    I want to read to you an answer that you gave to one of the 
advance policy questions submitted to you by the committee. You 
were asked about the possible impact of decreasing Army end 
strength, and the Service's ability particularly to achieve the 
dwell ratio of 2 years at home for every year our soldiers are 
deployed. That was a big motivator for the statutory 
authorization of increased end strength. Your answer was, ``The 
decreases in Army end strength are condition-based, and I'm not 
in a position, at this time, to assess whether there will be an 
impact on the dwell goal of 1-to-2, based on these 
reductions.''
    I want to ask you whether you would say that one of the 
conditions that should be met, before the Army is asked to 
reduce its current end strength, would be a judgment that the 
2-to-1 or 1-to-2 dwell ratio for our Active-Duty Army will not 
be jeopardized by that reduction in end strength.
    General Dempsey. I absolutely agree with that, Senator.
    Senator Lieberman. I appreciate that very much.
    We don't know now whether the Government of Iraq will 
request that any of our Armed Forces remain in Iraq after the 
end of the current Status of Forces Agreement, at the end of 
this year. I hope they do, because I think it's necessary to 
protect all that we've given there to achieve what has been 
achieved. But, just assuming, for a moment, that the Iraqi 
Government did ask us to maintain some number of our Armed 
Forces in Iraq after December 31st of this year, and we decided 
to do so, I assume that would have an impact on dwell ratios 
for our Army and on proposals for reducing U.S. Army end 
strength.
    General Dempsey. It may, Senator. It would turn on the 
depth of that commitment they were asking us to make and our 
assessment of what common interests we have in doing so. At 
some point, there is a bit of science to it. We know how big 
the Army is. We know what we're asking it to do. We know we 
want to have it on a 1-to-2 boots-on-the-ground (BOG)-dwell, 
because of the human dimension, and we can figure it out.
    Senator Lieberman. Good enough.
    One part of Secretary Gates' speech at West Point that's 
received less attention than other parts--and it was a very 
important and thoughtful speech--was his focus, not on the 
Army's hardware, but on the software of training, professional 
military education, doctrine, career management, and 
promotions, so much of which you've had a leadership role in, 
in recent years and overall in your career in the Army.
    I wanted to ask you--I know you've been leading a study on 
the Army as a profession of arms, in your current capacity--
whether you could give us any of your initial thoughts on how 
the Army can best rise to what I describe as the software 
challenge, particularly the element of leadership, which you 
referred to in your excellent opening statement.
    General Dempsey. Yes. Thanks, Senator.
    It won't surprise you, I get a little advice, on occasion, 
in that regard from the junior officers and noncommissioned 
officers (NCO) among us. Incidentally, in my office calls, over 
here with many of you, I tend to have time to chat with your 
fellows, who, by the way, are just a remarkable bunch. That's 
across the Services. The question I always ask them is, how are 
you doing? How are we doing? What are you doing? What do you 
want to do? Some of your military legislative assistants are 
recently retired or resigned military. I ask them, was there 
something we could have done to keep you in the ranks? I get a 
lot of inputs.
    I like the problem we have. We talked about all the 
challenges we have. But, I'll tell you, I really like the 
problem we have, in terms of the leaders, and even the 
individual soldiers; because 10 years ago, Senator, we didn't 
really know whether we were a courageous, resilient, resolute, 
inquisitive, adaptable force. We didn't know. We hadn't been 
tested. We certainly have been tested over the past 10 years. 
That's the foundation on which we now have to build the future 
Army.
    Our challenge will be that these young men and women have 
had capabilities, authorities, and responsibilities, as 
captains, that I didn't have as a two-star general. I'm not 
exaggerating a bit when I say that. So, continuing their 
development, from that point, a much higher entry level than I 
had, is our challenge. We think there are different 
attributes--inquisitiveness--we think, the ability to adapt. We 
have to line up our evaluation system with these attributes. We 
have to relook at our professional military education, how much 
in the brick-and-mortar schoolhouse, how much can be done 
through these mobile learning devices. We have to find ways to 
broaden these young men and women at places like these 
fellowships.
    We can figure this out. But, what we can't do--and I think 
the message that the Secretary of Defense is sending us is, we 
can't simply--if I can use probably a poorly phrased metaphor 
here--but, if we were a rubber band and have been stretched 
over the last 10 years, we can't let ourselves simply contract 
back to our previous shape, because they won't stand for that.
    Senator Lieberman. Very well said.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    We are setting up a briefing on Libya that we will have 
tomorrow. It will be a classified briefing. We will share with 
the members of the committee, as soon as we have it, the time 
of that briefing.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I appreciate Senator Lieberman talking about the end 
strength and the fellowship program. I was going to ask about 
that, and I appreciate your answers.
    The fellowship program, I see a guy sitting, two seats to 
your left, who was a part of that--the only problem with that 
program: you learn to love these guys and gals and then they're 
gone. I don't know how we can correct that, though. I 
appreciate the fact that we started limiting that program, 
here, about 15 years ago, and it's been increasing since then. 
I would encourage you to keep that trend up.
    Let me say this. Your predecessor, General Casey--one of 
the things I liked and appreciated about him--and I know you 
have those same characteristics, because I've already been 
exposed to them--and that is, he's very hands-on. He wanted to 
know for himself what was going on. Of course, you're 
interested in the Joint Fires and Effects Trainer System 
(JFETS) Program and Air Defense Artillery and some of these 
things that are going on today. I hope that we can continue 
with that. I'm sure that we can. I appreciate the fact that you 
have, in our Fires Center of Excellence and all these things.
    It's a whole new concept, this simulation level that we've 
gotten to right now. People are in shock when they come from 
other countries and see and witness this thing. I'm hoping that 
you would keep that up.
    Do you have any comments about the JFETS program?
    General Dempsey. I think it's game-changing.
    Senator Inhofe. Yes.
    General Dempsey. For the other members, it's a simulation, 
where we can link several different locations around the 
country. For that matter, we can link forward-deployed forces 
and have a common, live, virtual, and constructive environment 
in which leaders can grapple with complex problems, some of 
which are military, some of which are not.
    Senator Inhofe. Yes.
    General Dempsey. We're working to actually impose that 
model on the rest of the Army, at least in the institutional 
force. I think, eventually, though, the next training 
revolution in our Army will be what occurs at home station, 
because we have to raise the bar at home station. But, JFETS is 
groundbreaking.
    Senator Inhofe. Yes, I agree with that.
    Just one quick thing on some of the problems we're having 
that are health-related. We know, of course, with the strain, 
the tempo of operations (OPTEMPO) and all of this, the suicide 
rates, divorces, and all of this stuff that have gone on--and I 
know that we are addressing these but, I'd specifically talk 
about one of them, this traumatic brain injury (TBI). I've been 
interested in this for some time. In fact, the Chairman was 
good enough, at my request, to hold a hearing. We've made 
another request to hold a hearing that would include not just 
the vice chiefs, which is what we had the first hearing, but 
also the medical people, civilians, some of the troops 
themselves. I would like to be able to have such a hearing. 
Would you encourage us to get into the TBI and some of the 
other related problems, health problems that our troops are 
having?
    General Dempsey. Senator, anything that this committee will 
do to remain teamed with us on the issue of care for wounded 
warriors, I will deeply appreciate and completely support.
    We all saw that Frank Buckles, our last World War I 
veteran, passed away, just a few days ago, at 110. The scars of 
this war will be with us for the next 90 to 100 years. Shame on 
us if we forget, when the conflicts dissipate a bit. Shame on 
us if we reflect that this is a long-term issue for our Army, 
but also for our Nation.
    Senator Inhofe. I appreciate that. I don't mean to imply 
that this is having that negative an effect on individuals. I 
spent New Year's Eve in Afghanistan with the troops, and then 
again last week. It's just shocking to me. I was a product of 
the draft, and so I'd never thought an All-Volunteer Army would 
be what this is. But, the spirits are so high, and it just 
seems that, even when the OPTEMPO is high, the spirits are 
high, and we've done a good job. I know you'll carry that on.
    Senator McCain talked about some of the aging equipment 
that we have. General Casey and General Chiarelli have stated 
that we're burning up equipment as soon as we can field them. 
This is something that is a concern of mine. There was a 
statement that was actually in the press, and I'll read it. The 
study of the Secretary of the Army by former Assistant 
Secretary of the Army, Gilbert Decker, and retired General 
Louis Wagner, found that the Army has spent $3.3 to $3.8 
billion annually since 2004 on weapons programs that have been 
cancelled. I am concerned, and you wouldn't know now, but for 
the record, I want to see if that has stopped by now. If not, 
maybe we can address and find out why.
    [The information referred to follows:]

    The Army Acquisition Review Panel submitted its report in February 
2011, which includes 76 recommendations in 4 broad areas that extend 
across various Army organizations. Those broad areas address 
requirements generation, risk management, organizational alignment, and 
resources. The Secretary of the Army has directed the Assistant 
Secretary of the Army for Acquisition, Logistics and Technology 
(ASA(ALT)) to assess those recommendations. The ASA(ALT) will provide 
specific recommendations for implementation of those portions of the 
report which are judged to improve the efficiency and effectiveness of 
the Army's Acquisition process. That initial assessment is due to the 
Secretary in April. Following that, the Army will determine the path 
forward on implementation of the recommendations.

    Senator Inhofe. On the equipment, and the aging equipment, 
specifically, I've been concerned, as time has gone by--and I 
think Senator McCain mentioned this--and a good example would 
have been the Crusader. We needed to increase that non-line-of-
sight capacity that we had. The Paladin, that we're using 
today, is the same technology that was there 50-some years ago, 
when I was in the U.S. Army. Now we have a Paladin Integrated 
Management (PIM) program. But, we went through the FCS and--as 
has been stated before--we get down the road to these things, 
then someone comes along and we whack them and start something 
new.
    I hope, and I believe, that you will do all you can--now 
that we have the PIM program--down the road a little ways, that 
we can continue to do that. It's just remarkable that our 
capability with the old Paladin, there are five countries, 
including South Africa, that make a better artillery piece than 
what we're using now.
    Do you have any comments about where we're going to go in 
the future and what you're going to try to keep the 
discontinuation from happening again?
    General Dempsey. Simply my commitment, Senator, to work 
that. I am familiar with the work of Dr. Decker and General 
Wagner. I think it's good work. My own professional view is 
that some of the programs that we aspire to field fail because 
of the time horizon we establish for them. I have been vocal, 
within TRADOC, that requirements determination and the 
acquisition solution to those requirements and capabilities 
need to be taken on a shorter timeline, a 5- to 7-year time 
horizon instead of a 10- to 15-year horizon, because if we try 
to project our needs 10 or 15 years in the future, it's almost 
certain we won't get it right. I think we have some good ideas 
in that report to work on. You have my commitment, Senator.
    Senator Inhofe. Yes. I'm sure that's right. My time has 
expired, but I would only tell you that--I remember the last 
year that I served on the House Armed Services Committee was 
1994--we had a witness that came in that said, ``In 10 years, 
we'll no longer need ground troops.'' You're right. As smart as 
all the generals are, we don't know what's out there in the 
future. But, I would like to get to the point where, no matter 
what is there, our kids have the best that there is out there, 
and I'm sure you feel the same way.
    I look forward to serving with you.
    General Dempsey. Thank you, sir.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Dempsey, welcome.
    Let me follow up on a point that you responded to, to 
Senator Inhofe, in that this 100-year burden for soldiers and 
marines and sailors and airmen who are bearing the fight now, 
it has to reflect not only in the DOD budget, but the Veterans 
Affairs budget. I think you concur. I just want that for the 
record.
    General Dempsey. Absolutely.
    Senator Reed. Thank you.
    We're talking, now, about the future. That is being shaped, 
or thought about, in terms of several different dimensions. One 
is a changing context: new technologies, social networking, 
climate change affecting the natural resources and will be the 
struggles. That has to be factored in.
    But, the other fact is the traditional threat; what other 
countries or non-state actors have, in terms of weapon 
capabilities and intentions. Can you talk about that aspect, as 
you go forward, of how you're trying to weigh that threat? Does 
it synchronize well with Secretary Gates' speech at West Point?
    General Dempsey. Yes, sir, I will speak to that. It gets at 
the reason--I don't think the Secretary was saying, ``Shed the 
heavy force and invest entirely in the light force and special 
forces,'' because he and I have had conversations, for example, 
about the Israeli experience in southern Lebanon in 2006, where 
a non-state actor, a terrorist organization, was as well 
organized, trained, and equipped as the traditional Israeli 
defense force that was confronting it: shore-to-ship missiles, 
air defense weapons, electronic warfare, advanced anti-armor 
capabilities. I mean really remarkable stuff. So, as the 
Secretary and I--and this is mostly in my job as acting CENTCOM 
commander--but, as we talked about the future of conflict, we 
generally believe that the future will be more a series of 
hybrid threats, where you have to be prepared to confront your 
adversary wherever he chooses to confront you.
    Sometimes it'll be very irregular and decentralized, and 
sometimes it will look a lot like a conventional conflict. So, 
what we owe the Nation is a force that has capabilities 
proportional to what we believe we'll confront but has all 
those capabilities. We need an institution that's adaptable 
enough that if we get it wrong--and, as we've said here 
earlier, we are likely to get it wrong--we have to have an 
institution that is adaptable enough to rebalance itself on a 
far more frequent basis than we have in the past. I think the 
world is a far more dangerous place today than it's ever been, 
and we owe the Nation an agile force that can adapt to the 
future, whatever it finds in that future.
    Senator Reed. Thank you.
    Let me go to another point that was raised in the West 
Point speech; that is, developing, not just an officer corps, 
but NCO corps of expertise and flexibility and agility. Part of 
that goes as a reward structure. Do you have any thoughts or 
comments now about how you're going to think about changing the 
reward structure so that you find people at the upper levels of 
both the commissioned officer corps and noncommissioned corps 
who have a cultural awareness, who have a range of skills that 
are not the traditional tactical operational skills that have 
in the past been the gate to get into the upper ranks?
    General Dempsey. Yes. I will say, Senator, that's really 
been my life's work for the last 2 years, has been looking at 
leader development, really, all four cohorts; and I'll define 
the cohorts as officers, NCOs, warrant officers, and civilians 
as well, working a great deal with the Assistant Secretary of 
the Army for Manpower and Reserve Affairs on civilian 
development.
    I think we've done some very good work, in particular, in 
the NCO corps. When I came in the Army in 1974, a NCO was very 
likely not to have a high school education. Now, it's the 
expectation that, if a soldier rises to the rank of sergeant 
major, he'll have a bachelor's degree before he gets there. By 
the time he retires, he'll have a master's degree.
    We haven't actually adjusted how we use them yet to account 
for that additional capability. Someone approached me yesterday 
about the possibility of having NCO fellows here in the 
Congress of the United States. You kind of slap your forehead 
and say, ``Why didn't I think of that?'' We haven't really 
adjusted the way we use them. But, I have great faith, and I 
applaud the selection that General Casey made of the new 
Sergeant Major of the Army, Ray Chandler, who will push us in 
that regard, in development of the NCOs.
    On the officer side, and others, we're looking at a new 
personnel management model. You may have heard of the Blue 
Pages in IBM. We have a prototype, on a thing we call the Green 
Pages, that allow an individual officer to actually collaborate 
more on their career development, allows us to understand what 
they're interested in, not just the classes we've given them, 
but we might have somebody who worked in Outward Bound as a 
child or as a military child, spent 18 years in the Pacific 
Rim. We wouldn't know that today, but we'd like to know that. 
There's a number of programs that are out there. Technology 
provides huge opportunities to use them.
    What I will tell you, in closing this question, is, I am 
deeply committed to the development of our leaders, because we 
are likely to get the equipment, sort of right, but not 
perfect, and the organization sort of right, but not perfect. 
We're probably going to give guidance a little late, I've 
found. The person that pulls it together is that leader on the 
ground, and we have to keep committing to their development.
    Senator Reed. Just let me follow up on that and second your 
comment about the NCOs; they are the heart and soul of any 
military force, particularly the U.S. Army. In 1971, when I 
came on Active Duty, the same comment could be made about the 
NCOs' education level, and now they're superbly trained. I 
think you're absolutely on target.
    Second is that, with the advent of social networking--and 
this is not going to be a social network--but I was extremely 
impressed, years ago, when some enterprising young officers set 
up, sort of, Company Commander, Inc. or CompanyCommander----
    General Dempsey. Dot com.
    Senator Reed.--dot com. Is that informal learning--how are 
you going to integrate that into our plans?
    General Dempsey. That's the question that provides the 
greatest opportunities for us, I think, in terms of leader 
development.
    I have to just back up a second and tell you, when I took 
the job at TRADOC, Senator, I found a CD of General Donn 
Starry. Now, he's a name familiar to you.
    Senator Reed. I know.
    General Dempsey. But, Donn Starry was considered to be one 
of the great thinkers of our Army in the 1970s, and helped the 
Army, under other leaders, build to what it became in 1991, and 
even what it is today. But, he had a video--it was one of the 
first VCR tapes ever made in the Army--and it showed him 
walking into a mall in Hampton, VA, and looking at young men 
and women playing video games. He turned to the camera and 
said, ``We know they're in there. They're in there playing 
these games. They're paying for the opportunity to play. 
They're learning something. What we don't know is what they're 
learning.'' That was in 1981.
    I feel the same way today about social networking. We have 
young men and women playing massive multiplayer online role-
playing games, MMOs as they call them, World of Warcraft and 
others--I mean, millions of children playing these interactive 
games. They're learning something about developing as leaders, 
believe it or not, because of the way these games structure, 
and you have to impose your own leadership into the game.
    We can figure out how to leverage a game like that for 
leader development, linking schoolhouses across the country--
I'm talking about military schoolhouses. I think we'd be onto 
something in helping these young men and women collaborate, 
meet their desire to social network, and also facilitate the 
kind of learning we're going to need by introducing complex 
problems in that environment, that we can't replicate 
physically at places like Fort Hood, Fort Bragg, and Fort 
Carson. I think social networking has enormous opportunities 
for us.
    Senator Reed. Thank you very much, General.
    Mr. Chairman, if I may, I think I recognize General Gordon 
Sullivan, the former Chief of Staff of the U.S. Army is in the 
audience today. His distinguished service must be applauded.
    Thank you, General Sullivan.
    Chairman Levin. Thank you, Senator Reed. Thank you for 
making that reference to General Sullivan.
    We are very much intrigued by your answers here, I must 
tell you, General Dempsey. It's really mind-opening.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    General Dempsey, let me echo the sentiments of my 
colleagues in congratulating you on this nomination, and also 
to thank you and your family for your service to our country 
and your continued commitment to freedom and democracy around 
the world.
    Also, I want to commend you, likewise, on this fellowship 
program, and I appreciate your comments and strong support of 
that. I have been blessed, going back to my days in the House, 
with outstanding young men and women serving in my office. It's 
been a privilege to have a chance to dialogue with those folks, 
one on one, about what really is happening out there which, in 
addition to the great service they provide from a information 
standpoint, personal-wise, they're just such an asset. It's a 
very valuable program.
    I want to go back to the question that Chairman Levin asked 
you about, on this decision regarding personnel serving in 
Europe. You'll recall, a couple years ago, a decision was made 
to put three brigades back in the continental United States, 
one at Fort Bliss, one at Fort Carson, one at Fort Stewart. I'm 
not sure how the decision can be characterized as a reversal, 
putting on hold, or whatever. But, I'd like for you to 
characterize exactly where that is. What kind of importance is 
that decision being given in your current discussions, relative 
to what's going to happen, as far as bringing troops back from 
Europe? Lastly, what's your timetable on that study?
    General Dempsey. Yes, thank you, Senator.
    We, at one point, were going to build 76 brigade combat 
teams. We took a decision--the Department did--that we would 
build only out to 73, and we held the 4 brigades in Europe, 
pending the outcome of the conflicts in Iraq and Afghanistan, 
because we had them--all of the Army, on such a 1-to-1 BOG-
dwell ratio that it would have been too disruptive to move 
them, under that situation.
    Now we're looking at absorbing, potentially, the 27,000 
reduction, and it is inevitable, as Chairman Levin said, that 
there will have to be some structural changes to account for 
that 27,000. The analysis is just really beginning on that, and 
I haven't been made privy to it.
    If confirmed, of course, that will come to the Chief and to 
the Secretary of the Army to determine which brigades are 
essentially the billpayers for that 27,000 end strength. I'm 
not suggesting it will be all brigade combat teams. It'll have 
to be some portion of the entire Army, to include the 
generating force. I think the timeline for that is probably the 
analysis over the next 6 months, because it'll be executed in 
the--in Program Objective Memorandum 13-17 and the timeline for 
our submission of 13-17 is on or about July 1. That's about the 
timeframe for this analysis.
    Senator Chambliss. Okay. While impressive gains in security 
have been made throughout the country of Iraq, Iraq still 
remains a very dangerous place to live, travel, and work in 
2011. Targeted assassinations, corruption, and Iraqi security 
force, medical, logistical, planning, and transportation 
shortcomings continue to undermine the Iraqi Government 
security and infrastructure improvement efforts throughout the 
country. The security of their oil fields, pipelines, and 
terminals, while also much improved, remain a critical 
vulnerability and a prime target of insurgent forces.
    As U.S. forces withdraw from Iraq, the Department of State 
will have to act quickly to significantly increase their 
security footprint in Iraq so that their diplomats can maintain 
a significant construction presence in Iraq for years to come, 
a job required sustained oversight engagement to watch over 
what remains of the $58 billion in U.S. construction programs. 
While that ability to find, vet, and hire so many professional 
security personnel in such a short period is by no means a 
certainty, neither is continued stability in Iraq. As we're 
seeing throughout the Middle East right now, there is all kinds 
of instability regarding neighbors to Iraq.
    My question is, with this sustained instability throughout 
the Muslim world, is the withdrawal of all U.S. combat forces 
from Iraq at the end of this year still the right thing to do?
    General Dempsey. I can't speak to whether it's the right 
thing to do for Iraq. I think that's the piece of this, 
Senator, that we would have to examine.
    We certainly have interests in Iraq and in the broader 
region. It will have to be determined whether Iraq's interests 
and ours will be matched, and that part of that match will be 
additional force structure remaining in Iraq. I mean, that's 
very much a negotiation that will have to occur between the two 
sovereign nations.
    I will say that some forward presence--U.S. military 
presence, but, even more specifically, U.S. Army presence--in 
that region is important to me. I think that's a very important 
region of the world, and will be, for the foreseeable future, 
and I am advocate of a forward presence there.
    Senator Chambliss. There's also been some preliminary 
discussion and conversation about, when it becomes time to 
leave Afghanistan, that we may leave that country from a combat 
standpoint, but that we will establish at least one base in 
Afghanistan. What's your thought, with reference to that issue?
    General Dempsey. I haven't been made aware of that 
planning. I'm not surprised that someone is--someone should be, 
in fact, looking beyond the date 2014, which is the commitment 
we've made with our North Atlantic Treaty Organization allies 
to provide the kind of support, and to be in the lead. I'm not 
surprised folks are beginning to look beyond that to determine 
what is our long-term interest there.
    I think the answer to that question, Senator, very similar 
to the one I gave vis-a-vis the Arabian Peninsula. We are very 
closely partnered with Pakistan and have some shared interests. 
We are currently in Afghanistan and have shared interests. How 
those interests are managed over time, I think, will be 
dependent upon how the situation on the ground plays out in the 
next 3 or 4 years.
    Senator Chambliss. As my time has expired, General, thanks 
again for your service. We look forward to continuing to work 
with you in your new role.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Again, General Dempsey, thank you for your service, and 
your family, for their service, as well.
    On a visit to Iraq, you and I spent time talking about how 
you were able to take the processes and procedures of 
acquisition of the U.S. military and use that to make 
acquisitions for the Iraqi military, recognizing that, in the 
absence of those processes and procedures--acquisition 
procedures in the Iraqi Government--they were basically 
incapable of getting all the money spent in the right way, 100 
percent for the acquisitions. By doing that, using Iraqi money, 
you were able to acquire their military material for their 
needs. I thought that was novel at the time. It also showed me 
that there was a recognition by the Iraqi Government that their 
responsibility was clearly theirs, not just simply the United 
States, to provide for the cost of their defense.
    As we look toward leaving in December 2011, there is a 
possibility that we're going, as you and I discussed, that the 
Iraqis are able to provide for their own defense, but they 
might decide that they need continuing support for their 
defense. We understand. If they can't defend, they can't 
govern. Self-defense and self-governance go hand-in-glove.
    What I'm getting to is, they're facing deficits in their 
budgets, as we're facing deficits in our budgets. On a relative 
basis, I would take theirs over ours. My point is, can we look 
to ways in negotiating anything, if we're going to stay and 
provide assistance, where they can pick up a bigger share of 
the cost so that the American taxpayer doesn't end up picking 
up a bigger share of the cost?
    General Dempsey. Senator, I think General Lloyd Austin, 
who's in Iraq--would be better positioned to answer whether 
they----
    Senator Nelson. Well, I asked him, too.
    General Dempsey. Oh, you did?
    Senator Nelson. Yes.
    General Dempsey. I probably should have read their answer 
before I tried to hazard a guess at my own.
    As I said in an earlier answer, Senator, I think this is 
all about identifying our common interests, and then 
challenging each of us to invest in those common interests. I 
think that the proposal would be absolutely appropriate.
    Senator Nelson. You may very well be, in your new position, 
when not only the Iraqi war winds down, but also perhaps, if 
we're so fortunate, that we would see a reduction in the level 
of activity and the costs associated with Afghanistan.
    While the Army is always engaged in planning, do you 
believe that we will be in a position to start looking towards 
some planning for a reduction in forces in Afghanistan? I know 
this is something we're going to ask General Petraeus, when 
he's here. But, from your standpoint, if that decision is made, 
that we are going to reduce forces, that you will take that 
into consideration, looking at our continuing end strength 
needs, as well as the rest of the military needs, to support 
the kind of defense that Secretary Gates has been talking 
about.
    General Dempsey. Senator, you will consider me for 
confirmation both as the Chief of Staff of the Army, but also 
as a member of the Joint Chiefs of Staff; and that last point 
there is the responsibility of the Joint Chiefs, to balance our 
commitments around the world for our national security. If 
confirmed, I'll absolutely take that obligation to heart.
    Senator Nelson. If we do that, how will this affect the 
current situation, where we're looking to draw down 27,000 
troops from the Army? By 2014, will that be reevaluated, do you 
believe? Will that have constant reevaluation, or is that a 
date set and a goal that just must be achieved, or will that 
have to be constantly reevaluated in the days ahead?
    General Dempsey. I consider it to be the latter case, 
Senator, where the assumptions on which those decisions were 
made need to be reevaluated as we see what occurs with Iraq, 
post-December 11, and what occurs with Afghanistan post-2014.
    Senator Nelson. Now I'm really going to test you on what 
our Chairman said at the beginning, about giving your opinion, 
no matter how it might shape up with other opinions with your 
colleagues.
    Chairman Levin. He's not confirmed yet, though. [Laughter.]
    Senator Nelson. That's true. You can tell me anything----
    Chairman Levin. But, we still expect that of you.
    Senator Nelson. We still expect it.
    Chairman Levin. Yes, I support Senator Nelson.
    General Dempsey. Thank you for your first response, 
Chairman Levin. [Laughter.]
    Senator Nelson. If confirmed as the Army Chief of Staff, 
can we expect that you would be a very strong advocate for our 
National Guard?
    General Dempsey. That's an easy one, Senator. Absolutely.
    Senator Nelson. Now the tough one. Do you believe that the 
Chief of the National Guard Bureau should become a member of 
the Joint Chiefs of Staff? That's the tougher one.
    General Dempsey. Yes. It's tough, only because I haven't 
thought about it. I have learned, long ago, not to render an 
opinion about something I haven't thought about. What you can 
count on me to be is openminded about that.
    Senator Nelson. I hope that you will be openminded about 
it. The Guard has established itself as an operational force, 
no longer as a supply force. It's operational. It's not on the 
shelf, ready to go. It's active, as active as the Active Duty 
military. I would hope that you would consider that. Keep an 
open mind, but consider it. I'm going to keep pushing for it, 
because I think the importance of the role that the Guard has 
now taken is something that needs to be at the table all the 
time. Getting a four-star in charge of it was step number one. 
But, step number two, as a full partner, I think, involves 
being a member of the Joint Chiefs. I know it's touchy, but I 
hope that you and your colleagues will look very carefully at 
that.
    General Dempsey. Thank you, Senator.
    Senator Nelson. Thank you, and good luck.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    General Dempsey, I want to thank you for your distinguished 
service to our country.
    I also want to thank your wife, Deanie, and your son, 
Christopher. It's wonderful to have a military family here. The 
sacrifices that your entire family has made, we're deeply 
appreciative of.
    I welcomed the opportunity, also, to sit down with you 
yesterday.
    I want to take this moment just to express my deep 
condolences to the families of the Air Force members who were 
killed yesterday in Germany on their way to Afghanistan. I 
think it reminds us that we continue to be at war with 
terrorists, and the difficulties that we face, and also the 
sacrifices that our servicemen are making across the branches 
on behalf of our freedom and democracy in the world.
    General Dempsey, in your answers to the advance policy 
questions, you state that the significant increase in the 
number of soldier suicides is of greatest concern to you, and I 
share your concerns. With the number of suicides in the 
National Guard rising to especially troubling levels, I share 
your goal of reducing those suicides. In particular, as we 
discussed yesterday, in New Hampshire we have the National 
Guard's Deployment Cycle Program which I believe is the model 
program, because we not only need to make sure that programs 
are in place for the full deployment cycle for our Active Duty 
members, but also, we've asked so much of our guardsmen and -
women in the Reserve to make sure that we are taking care of 
our soldiers when they come home from the Guard, as well. This 
program is a highly effective and fiscally responsible 
initiative. It's really a public-private partnership that I 
think is unique across the country.
    Yesterday, Senator Shaheen and I wrote a letter to Admiral 
Mullen, urging him to take a close look at this program, and 
also to support this program. We have seen the program work to 
help on retention, to help with the many issues and challenges 
that our guardsmen and -women face when they return from duty, 
and also when they are going to duty, as well their families. I 
would ask you--and I will provide you with a copy of this 
letter--for your support for this program, and for you to take 
a close look at it. I think it's a model for other States 
across the country, and very important that we not lose sight 
of our soldiers when they come home. Particularly in the Guard, 
when we've asked so much more of the Guard, with multiple 
deployments, than we have historically, that we make sure that 
those programs are in place.
    I just wanted to get your thoughts on what you envision, 
going forward, in addressing our guardsmen and -women and the 
deployment cycle support for them.
    General Dempsey. Thank you, Senator. Thank you for, by the 
way, your role as the spouse of an air national guardsman. I 
know you've been through a couple of deployments, as well.
    Senator Ayotte. Thank you.
    General Dempsey. You speak with great authority and 
experience in that regard.
    I have already passed to my staff, as the TRADOC commander, 
the task to look at that program you mentioned to me yesterday.
    In general, though, I'll tell you that we continue to learn 
as we go. We've been reminded, recently by some of those 
statistics, other kinds of trends within the force, of the 
accruing effects of 10 years of war. The Guard presents a 
unique problem, because they don't come back to a central 
location. They come back, they spend a brief period of time, 
and then they dissipate, sometimes within a single State, 
sometimes within 10 or 15 States. I can assure you, at this 
point, that we are beginning to grapple with understanding the 
problem, and we will partner with you and others to solve the 
problem. Because, it's one, again, that will be with us for 
some time.
    Senator Ayotte. Thank you. I very much appreciate that, and 
look forward to working with you on solving that problem, which 
is so important in supporting not only our Active Duty troops, 
but our guardsmen and -women, and Reserve, who we're asking so 
much of them at this time.
    General Dempsey, Chairman Mullen has also stated his belief 
that the national debt represents a preeminent threat to our 
national security. Do you share that concern?
    General Dempsey. I do, Senator. The instruments of national 
power--diplomatic, military, and economic--have to be in 
balance for us to be the power we need to be.
    Senator Ayotte. If we don't restore fiscal sanity to 
Washington and reduce our national debt, one of the concerns 
that I have is that the rising debt payments will begin to 
significantly crowd out the finances we have to be able to 
protect our Nation and its interests and, obviously, to fill 
our commitment to our Active Duty troops and to our veterans, 
who have sacrificed so much for us.
    I would ask you, as the--hopefully--new Chief of the Army, 
to look at two things, and also to get your thoughts on it. One 
is the recently released March Government Accountability Office 
(GAO) report. In that report, the GAO found that there were 
instances of duplication and waste among the branches, where 
the branches could better coordinate, where there were 
redundancies on areas of equipment and areas where we could 
work together to reduce costs. Have you had a chance to review 
that report yet?
    General Dempsey. No, I haven't reviewed the actual report, 
but I have seen the reporting on it.
    Senator Ayotte. I would ask you to review that report and 
look for ways to implement some of the recommendations that are 
made in that report so that we can reduce those duplications 
and make sure that we are using taxpayer dollars as effectively 
as possible, given the great challenges that we face right now.
    General Dempsey. I will.
    Senator Ayotte. Thank you. I also wanted to follow up on 
the comments that Senator McCain made about the acquisition 
programs in the Army. We've seen, in some instances, where 
there have been billions of dollars that programs have been 
canceled, programs have been broken. How do you plan to address 
acquisition in a way that uses taxpayer dollars more wisely? 
Hopefully we can see some cost savings from that, as well.
    General Dempsey. Senator, we have to. We can't continue to 
hemorrhage resources that you'll be increasingly challenged to 
help provide.
    I think that the Decker-Wagner report gives an aperture 
through which to look at this issue much more seriously.
    One of the earlier comments was about these things called 
``capability portfolio reviews''. I think you're familiar with 
them. The capability portfolio review process is really senior 
leadership of the Army, personified now as the Vice Chief of 
Staff of the Army himself, Pete Chiarelli--bringing together 
the requirement side of the house and the acquisition side of 
the house periodically to do exactly what you're talking about. 
I think the first step, in answering your question, is to 
institutionalize those capability portfolio reviews and then to 
take the Decker-Wagner report and implement it, or at least 
determine which pieces of it should be implemented.
    Senator Ayotte. Thank you very much, General.
    My time is up. I want to again commend you and your family 
for your service. I look forward to working with you to make 
sure that you have the equipment that you need, but also on 
these issues of where we can save taxpayer dollars and do 
things more effectively and more efficiently.
    General Dempsey. Thank you.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Before, General, I direct some comments and questions your 
way, I want to associate myself with the remarks of the Senator 
from New Hampshire. She's on point. The Senate, right now, 
seems to be the one institution here in Washington that's 
really working on a long-term deficit and debt-reduction plan. 
A broke country is a weak country. We have some serious work to 
do. DOD can help us get the job done.
    You've talked about dwell time, General, and you know that, 
under the current Army force generation cycle, we're not able 
to provide the goal of 2 years at home. My question is, since 
the quantity of time at home station is limited, what steps 
would you take, as Chief, to improve the quality of time at 
home for soldiers?
    General Dempsey. That's a interesting way to put it, 
Senator. I haven't heard it phrased that way, but it's worth 
thinking about.
    Senator Udall. I have great staff, General.
    General Dempsey. Any of them behind you?
    Senator Udall. Yes.
    General Dempsey. Okay. Good.
    Senator Udall. He's a retired Army helicopter pilot.
    General Dempsey. Ah, a retired helicopter pilot. I might 
have known. I'm surrounded by helicopter pilots here, it seems.
    Senator, just before I talk about the quality issue, I 
don't want to walk away from the absolute imperative of the 
quantity issue, because every study we can possibly get our 
hands on suggests that it takes at least 2 years to fully 
recover from the experience that a young man or woman will have 
in a forward-deployed combat environment. So, it is quantity. I 
have to remain firmly committed to it.
    In terms of the quality, the issue, for me, is to 
determine--it's back to this best practices. There are some 
remarkable practices out there, some of which, by the way, we 
saw in effect at Fort Carson, CO, in a recent visit there. We 
have centers of excellence in different programs. One program, 
in particular, ties it together, called the ``Comprehensive 
Soldier Fitness Program,'' that has to be extended, and is 
being extended, into families, how to make families more 
resilient, right from the start of their service, not waiting 
until some crisis comes their way.
    But, what we're trying to do is take the best of ideas out 
there, and share them and institutionalize them, because some 
of the family care programs have been like a thousand flowers 
blooming. With good intentions, we've wanted to do as much as 
we could. Now we're in a position where we've seen a thousand 
things; we need to decide which 50 of them actually have the 
impact we're seeking. We need to invest in those to get at the 
quality issue you're talking about. That work is ongoing, 
generally through our Installation Management Command, 
commanded by Lieutenant General Ricky Lynch, but also in 
partnership with the Assistant Secretaries of the Army.
    Senator Udall. I think that fits into, I don't know if 
you've put this in a doctrine or not, but I think you have the 
rule of 5 versus the lure of 55. I hear you voicing that same 
kind of an approach to this.
    If I might, let me turn to a question of Civ-Mil jointness, 
if you will. We're asking our soldiers to be diplomats, 
ambassadors, trainers, and negotiators--even have an eye for 
business cycles and dynamics--in all these theaters in which 
they're deployed. They come back as experts in areas we never 
could have envisioned a few years ago. I'm wondering how we can 
ensure that they share what they've learned with other agencies 
before and after future combat rotations. Is there any joint 
predeployment training with nonmilitary agencies, like the 
State Department, at the National Training Centers? Would you 
see any value in such training?
    General Dempsey. First of all, absolutely, Senator. We are 
doing a good bit of it now. We jointly train the Provincial 
Reconstruction Teams (PRT), for example, that are forward-
deployed. We train with them. To the extent we can, we try to 
get them, as well, to go through our mission readiness 
exercises with deploying brigades. Now, sometimes, because 
those other agencies of government are one deep at many of the 
skilled positions, unlike us, they can't make that training. 
But, we never deploy either a PRT or a brigade combat team 
without some of that training. Could and should we do more? 
Yes.
    Second, in the educational system of our Army, we have 
several programs. I'll mention one. We have a interagency 
fellowship program at the Command and General Staff College at 
Fort Leavenworth, KS, where we take young Army officers who 
have gone through an abbreviated Command and General Staff 
College course, and we'll put them into an agency of 
government--U.S. Agency for International Development, the 
Department of State, Department of Commerce, Department of 
Transportation--displacing one of their folks; that allows that 
person, then, to come to Fort Leavenworth and go through the 
10-month Command and General Staff college experience. We have 
about 20 of them out there now. We have the capacity to take 
36.
    But, those are the kind of programs I think we need to take 
a look at in the future, as well.
    Senator Udall. That would be a fantastic way to take 
advantage of that investment we've made. I know those soldiers 
are keen to share what they've learned.
    By the way, I wanted to comment on your comments about the 
NCO-in-residence opportunity here. I had the great privilege of 
having Master Sergeant Rubio serve for a year in my office in 
the first year of the NCO fellowship. It was phenomenal. I want 
to just underline the importance of that approach.
    Let me, in my remaining time, move to energy. DOD's been 
leading the way in the development of renewable energy programs 
that will reduce the force's need for fossil fuels. It's first 
and foremost about security. We know that many of the grievous 
injuries in theater, delivered by improvised explosive devices, 
are aimed at supply convoys and the like.
    The Marine Corps has set up what they're calling an 
experimental forward operating base in California. They're 
working with private industry to develop and test solar cells, 
batteries, and other products. Then they've taken the most 
promising approaches to Afghanistan, and they've cut their fuel 
consumption in the process.
    Do you have plans, in the Army, to look at this 
Expeditionary Forward Operating Base model. If you don't, what 
can we do to help make that a reality?
    General Dempsey. No, we do, Senator.
    All the technological advances that we're introducing into 
the force all put an increasing demand on the generation of 
power. So, we have a capabilities-based assessment on the issue 
of power.
    There's sort of a joke in Afghanistan: You can follow a 
U.S. Army unit through the mountains of Afghanistan by the 
trail of batteries they shed, because of the power requirement 
that all of these systems require.
    We have a study in place--a capabilities-based assessment--
to try to determine how we can meet those power demands and 
become more self-sustaining. The aspiration is to eventually, 
in the out years, develop the capability to have a self-
sustaining brigade that can produce its own water, its own 
power, its own energy. We're a long way from that, but that's 
the right question to be asked to those that partner with us, 
like Defense Advanced Research Projects Agency, U.S. Army 
Research, Development, and Engineering Command, even the 
private sector, to try to help us become more self-sustaining.
    Senator Udall. That's exciting news, and count on me to be 
an advocate for what you're doing.
    Thank you, again. When you're confirmed, I look forward to 
further working with you.
    General Dempsey. Thank you, Senator.
    Senator Udall. Thank you.
    Chairman Levin. Thank you, Senator Udall. Thank you for 
raising the energy question. It's a critically important 
question for the Army. I also talked to General Dempsey about 
that, and the need for our security, in many ways, to address 
that issue which you have raised. Thank you for your ongoing 
interest in that piece.
    Senator Brown is next.
    Senator Brown. Thank you, Mr. Chairman.
    I'm bouncing back and forth, between hearings, like many 
others.
    Sir, I met you yesterday. Obviously, I asked a lot of the 
questions. I appreciate your candor. I look forward to voting 
in support of you.
    I have a couple of questions. I think you know that I have 
an interest in Guard and Reserve troops, and I attended the 
first National Guard Caucus event this year. I agree with many 
of the priorities referenced by Senator Graham, a dear friend 
of mine. He drilled down on several key themes that, if 
implemented, I believe would have a positive impact on our 
Nation's operational service and security.
    He was in the Reserves and, I just found out, the Guard, as 
well. I look forward to hearing his perspective on a whole host 
of issues regarding the Guard and Reserves.
    I'm concerned with the fact that our depressed economy is 
having a terrible effect on our heroes that have served, 
especially the Guard and reservists. Over 30 percent of our 
young non-Active-Duty soldiers are unemployed. I'm wondering, 
what does this mean to you, in your efforts, if any? Is there 
anything that we can do, and you can help us with, to have 
employers not only hire, but keep onboard, members of the Guard 
and Reserves?
    General Dempsey. Yes, Senator, thanks. Thank you for your 
service in the Guard.
    We are partnered with the other agencies of government, 
notably the Veterans Administration, of course, but also with 
Governors across the country, in trying to raise the interest 
and awareness of the plight of the returning veteran, if you 
will.
    General Petraeus' wife, Holly, was appointed to look at the 
predatory practices of some on trying to take advantage of 
soldiers, with things like loans and so forth.
    Senator Brown. Senator Reed and I actually dealt with that 
in our Financial Regulation bill, to try to address those.
    General Dempsey. Yes.
    Senator Brown. I recognize that, as well.
    General Dempsey. That crosses all components--Active, 
Guard, and Reserve.
    Senator Brown. Right.
    General Dempsey. We've partnered with academia, to the 
extent we can, to find educational opportunities. I won't name 
them, but there's some remarkable initiatives out there, in 
academia, where they are reaching out to veterans to allow them 
to use their GI Bill in a way that is both financially vital 
for them, but also to account for their unique needs as 
veterans as they come back from a conflict.
    Those are the things we're doing. What I would say to you, 
in response to your question, is, if confirmed, we have to keep 
the fire burning in that regard.
    Senator Brown. Right.
    General Dempsey. Because, again, this is not a 2-year 
problem or challenge, this is a multiyear challenge.
    Senator Brown. Sir, also, I know that you're dealing with 
the real issue of not only Active-Duty suicide rates, but, the 
Guard and Reserves rate seem to be dramatically higher. I'm 
trusting that you'll continue on with that effort and try to 
address what the needs are and try to have more intervention.
    General Dempsey. Absolutely, Senator.
    Senator Brown. Thank you. I'd appreciate that.
    Also, I was wondering if you could give any insight as to 
the M-9 pistol competition, where that will stand in the new 
go-round. Anything you can share?
    General Dempsey. In TRADOC, most of my attention to date, 
in terms of personal weapons, has been on the individual 
carbine, because TRADOC was tasked by the Secretary of the Army 
to run an analysis of whether it was time to move away from the 
M-4.
    We're actually doing two things with regard to the carbine. 
One is, improving the M-4, both its performance, but also the 
performance of the ammunition. We're looking at whether we need 
an individual carbine beyond the M-4. That work is ongoing. I 
think the request for proposal (RFP), in draft, has been 
released. I think the final RFP will be issued sometime in the 
third quarter of this fiscal year.
    I have not been involved, to date, Senator, on the issue of 
the M-9. Based on our conversation yesterday, I will look 
forward to learning more about that, if I'm confirmed.
    Senator Brown. Great. Sir, just in conclusion, I know the 
challenges are huge. My concern is that we get the best value 
for our dollars, but also that we can provide the tools and 
resources to our men and women who are fighting to not only do 
the job, but come home safely.
    One of the issues we talked about yesterday was the rules-
of-engagement issue, and making sure that's revisited and 
updated so we can allow the soldiers to do the job without 
being handcuffed by attorneys. I'm one of them. But, obviously, 
I think that's important. Out of all the things I've heard 
about the morale, the issues, it's that one issue that always 
seems to come back with us, saying, ``You know what? I'd love 
to do A, B, C, and D, but the JAG says--or this person says--
the commander's guidance is''--and I think, in some respects, 
at times, we may be jeopardizing the safety of our soldiers.
    I know you said you were going to look into that, and I 
appreciate it. Good luck to you and your family.
    Thank you.
    General Dempsey. Thank you, sir.
    Chairman Levin. Thank you, Senator Brown.
    Senator Hagan is next.
    After Senator Hagan, Senator Shaheen, I believe, will be 
the last Senator, on this side at least, and she has agreed 
that she could stay on, if other Senators appear, and take the 
gavel at that point. I very much appreciate that.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I want to welcome General Dempsey, and really appreciate 
your service to our country, and your continued service.
    I also wanted to welcome your wife, Deanie, and your 
family. It's obviously a family affair, when somebody spends 
the number of years that you have with our military. I want to 
thank you so much. To have three children also having been in 
the Army certainly is a testament to you and your wife. So, 
thank you both for that.
    I want to ask a question about the sexual assaults. I know 
you will take this seriously, but I did want to bring this up. 
Last month, a group of veterans and Active-Duty servicemembers 
sued the Pentagon, citing military commanders aren't doing 
enough to prosecute sexual assault cases. If these claims are 
founded, the failure to provide basic guarantees of safety to 
women, who now represent 15 percent of the Armed Forces, is not 
just a moral issue or a morale issue, it is a defining 
statement about the condition and the approach of our military.
    The Pentagon has issued a statement, saying the issue is a 
command priority and that it is working to make sure all troops 
are safe from sexual abuse.
    In the Army today, what do you foresee as the challenges in 
implementing a safe and timely reporting system for sexual 
assaults?
    General Dempsey. You have my commitment, as I expressed 
yesterday, that this issue is foremost in mind, and here's why, 
Senator. It rubs at the fabric of our profession. You may have 
heard that we're doing an analysis this year of, what have the 
last 10 years of war done to our profession? How are we 
different? How do we perceive ourselves to be different? How 
have some of the responsibilities we've pushed to the lower 
echelons--should they have changed the way we develop leaders? 
These things are all tied together. One of the things that has 
come out of the analysis already is that the core of our 
profession--if we're going to be a profession--and we can't 
take that for granted--is trust. The reason that an issue like 
sexual harassment is so important is not just because we should 
be protecting young men and women from sexual predators, but it 
tears at the very fabric of our profession. It breaks the bond 
of trust between leader and led. That's why it's important.
    We have made some inroads. You're well aware of our three-
phased program. We're well on the way to executing the program. 
Some of the reporting indicates, in the Active component, that 
it's steadied out. But, that's not good enough. It needs to 
nosedive, the number of incidents.
    You'll hear folks talk about whether it's better reporting 
or more incidents. I find that to be somewhat irrelevant, 
actually, because, again, it tears at the fabric of the 
profession. I do think the key is experts inside of brigade 
combat teams--and we're putting them there; education of our 
leaders about why it's important--not just because of the 
gender issues, but because of this issue of trust. We're doing 
that. But, what you have is my assurances that, if confirmed, I 
will press down even harder on the accelerator.
    Senator Hagan. I appreciate that. Thank you. I'm sure 
everybody will appreciate that.
    In the last decade, the Army has attempted to field the 
Crusader, the Comanche, the FCS, the non-light-of-sight 
missile, and the Armed Reconnaissance Helicopter. This research 
and development adds up, I believe, to about over $10 billion 
of research and development for equipment that was actually 
never fielded.
    The ground combat vehicle (GCV) is the latest possibility 
that will be added to the Army vehicle fleet. Do you think the 
requirements for this vehicle are realistic in development? 
More importantly, is the use of research and development funds 
being spent on the ground combat vehicle going to transform the 
battlefield capabilities? Will the ground combat vehicle be 
superior to the Bradley enough to justify the costs associated 
with developing and fielding it?
    General Dempsey. Yes, thank you, Senator.
    I am convinced that the requirements for the ground combat 
vehicle have been articulated in a way that actually begins to 
get at some of our aspiration for acquisition reform, meaning 
this: We collaborated, right from the start, among senior 
leaders, those who do the requirements determination and the 
acquisition community, on the requirements, as opposed to, 
potentially, some of the other programs you mentioned, where 
the requirements were determined, passed to the acquisition 
community, and the collaboration clearly wasn't adequate.
    The other thing we've done with the GCV is, we've said, 
``Look, if you can't give it to me in 5 to 7 years, I don't 
need it.'' Because, we know that if we shoot our aspirations 
beyond that technology we can see, generally speaking, we will 
be disappointed in the outcome.
    I think that the GCV is actually prototypical, not only of 
the next generation of ground combat vehicle, but of a process 
change. That's how we should look at it.
    The Bradley has been a venerable part of our inventory. 
But, it has reached its maximum capacity in weight and energy. 
As we continue to add technological advances, as we continue to 
learn more about what it means to protect, when we continue to 
learn more about the mobility required in urban areas, that's 
why we think the GCV is an important step in our modernization.
    Senator Hagan. Where are we on that timeline now?
    General Dempsey. The RFP is out, and I think we're 
approaching one of the milestones--I don't recall which--in the 
fall of this year.
    Senator Hagan. Okay. I think the collaboration is obviously 
very important to getting the right vehicle at the right time 
for the right price.
    As addressed in General Chiarelli's Suicide Awareness 
Report, published last July, in 2010, the life demands of a 
soldier today, when you look at the moving, the promotions, the 
combat stress, the exposure to trauma--all of these issues are 
disproportionately high, the suicides are comparatively high, 
compared to their civilian counterparts of the same age. The 
Army developed the Comprehensive Soldier Fitness to 
institutionalize mental resiliency. Although the Army is 
treating the symptoms of deployments, the larger issue, I 
believe, is rebalancing the force to allow the soldiers and 
their families to reset.
    As the Army works to teach soldiers to be internally 
prepared to deal with the challenges of the Army at war, what 
is the Army doing to create balance within the force, in terms 
of shorter deployments and longer stability within the 
assignments? We spoke a little bit about this yesterday.
    General Dempsey. We did, Senator. But, I appreciate the 
opportunity to reinforce it.
    We must get to a position where we have a minimum of 2 
years at home with 1 year deployed in the Active component. 
It's 1-to-4 in the Reserve component. I'm not sure that's going 
to be enough, to tell you the truth. I don't know.
    As I sit here today, I'm confident that, if we can get to 
1-to-2, we will be doing our soldiers and families a great 
service, that they well deserve, in terms of helping them cope 
with these life demands that Pete Chiarelli, who, by the way, 
deserves every accolade we can possibly heap upon him for the 
work he's doing in this regard.
    As we see these conflicts extend--and again, we're making 
some assumptions about Iraq and Afghanistan; and if those 
assumptions prove true, then 1-to-2 might be adequate to the 
task. But, if we continue to deploy in the numbers we're 
deploying, then we might have to reconsider and seek an even 
different BOG-dwell ratio. It might have to be 1-to-3. But, I'm 
not in a position--none of us are, really--to say that, right 
now.
    You know this, Senator, but, we'll always do what the 
Nation needs. If we have to break our BOG-dwell because of an 
emergency for this Nation, we're there. But, as a routine 
matter, when these issues become prolonged, we need to have a 
standard of 1-to-2 so we can address the issues you're 
addressing.
    Senator Hagan. It's so important for the soldiers, as well 
as their families.
    I thank you for your testimony, and I look forward to your 
confirmation.
    General Dempsey. Thank you, Senator.
    Senator Hagan. Thank you.
    Senator Shaheen [presiding]. Good morning. It's still 
``good morning''.
    General Dempsey, congratulations to you on your nomination. 
Thank you, to you and your family, for all of the service 
you've given to this country.
    I've been particularly impressed in the parts of your 
testimony, and questions that I've been able to hear this 
morning, about your work on leadership development. I would 
suggest that perhaps you could design a course for Members of 
Congress, because I think that would be helpful.
    General Dempsey. I think the appropriate response there is, 
``No comment,'' Senator. [Laughter.]
    Senator Shaheen. I know that Senator Ayotte, in her 
remarks, mentioned New Hampshire's Deployment Cycle Support 
Program, which we have had in place for several years to help 
our deploying Guard and Reserves and their families. I would 
just like to reiterate how important this program is. I think 
it's a model for the rest of the country. There's some very 
impressive data on the successes of the program. People who 
have been part of it are four times more likely to stay married 
when they come back. They're four times more likely to stay in 
the military. They're five times less likely to become 
homeless. On the very critical issue of suicide prevention, 
that a number of people have raised this morning, 100 percent 
of those people considered at risk for suicide are in active 
prevention with licensed support personnel.
    It has been a hugely successful program. With the largest 
deployment in New Hampshire's history right now, we think it's 
very important. I hope, after you are confirmed, that you will 
help us figure out how we can continue this program, which had 
been supported primarily through congressionally directed 
spending. I hope you will take a look at this.
    General Dempsey. I will, Senator. Thank you.
    Senator Shaheen. Thank you.
    This summer, I had the opportunity to visit Iraq for my 
first time, and Kuwait. We visited Camp Arifjan. I was truly 
amazed--and I think most people don't recognize that the 
deployment out of Iraq is the largest movement of people and 
materiel in the military since World War II. It was really 
quite amazing. General Patton, I know, would be proud of what 
General Webster and folks there have been able to accomplish.
    One of the things that impressed me the most was the way 
they had integrated savings into the entire operation there so 
that all of the men and women who were part of that effort are 
looking at how they can be more efficient in bringing people 
out and the operations of that unit.
    I wonder if you could talk a little bit about how you see 
integrating that kind of culture into the entire Army, and 
what's happening on that right now.
    General Dempsey. Yes, thank you, Senator, because it gives 
me the opportunity to point out that I'm deeply committed to 
supporting the Secretary of the Army and what he's doing to 
inculcate that culture that you describe into our Army.
    Secretary McHugh has been very clear with us, with the 
four-stars as we assemble from time to time with him, on that 
issue. We both respect his judgments and the course that he's 
charted for us.
    I would also mention that one of those who has accepted 
that responsibility is General Ann Dunwoody, who, you probably 
know, is our Army Materiel Command Commander. I've often said 
to her that she is accomplishing this retrograde of equipment 
out of Iraq in a way that actually almost makes it invisible to 
the rest of us, and suggested maybe it shouldn't be. She's done 
a remarkable job.
    I think what you're reflecting is, you've seen, at the 
tactical level, the kind of adaptations and efficiencies that 
we're capable of. What you're suggesting is, we have to do the 
same thing as an institution, and you're exactly right.
    Senator Shaheen. How do you make that happen?
    General Dempsey. Secretary McHugh and General Casey, for 
the past few years, have pursued a thing that they call the 
``enterprise approach,'' which is a way of suggesting that the 
stovepipes of the Army--and, sad to say, but not surprising, I 
suppose, we do have our own stovepipes: TRADOC, Forces Command, 
Army Materiel Command, the forward-deployed forces--we tend to 
see things inside of our own, if you will silos.
    Senator Shaheen. Right.
    General Dempsey. What the approach encourages is cross-
collaboration. Now, I'd be disingenuous to suggest we're where 
we need to be. But, where we want to be, and where I think 
Secretary McHugh will guide us, is to an approach that allows 
us to see issues right from the start, with a resource-
sensitive eye, which, frankly, to our discredit in some ways, 
we haven't had to do that because the American people have been 
so generous with their resources over the last 10 years.
    We've done fairly well with those resources, by the way. As 
has been said earlier, today's Army is the best Army it's ever 
been. Thank you for that. But, we have to understand that we 
also share part of the Nation's responsibility to be viable and 
to support the economic instrument of power, not just the 
military instrument of power. We're prepared to do that. To do 
that, we have to be more resource-conscious. We will.
    Senator Shaheen. Thank you.
    I want to also follow up on Senator Udall's question about 
how we reduce the dependency of our military on foreign oil and 
on how we are more efficient around energy use. You got into 
that a little bit, but I wonder if you could elaborate some 
more on the kinds of things that we're doing and what kind of 
support would be helpful from Congress as you're looking at 
what you need to do.
    General Dempsey. You know what I'd like to do, Senator, if 
confirmed, is take on board the opportunity to actually engage 
this committee--and you, in particular--on what we're doing 
with regard to this issue of power and energy, because we are 
doing a great deal. Much of it is really nascent. It's not 
really very well developed. But, we're looking at the same 
things that our civilian counterparts are looking at, in terms 
of solar and wind and the other noncarbon fuels that we might 
leverage to make ourselves more reliant. It's actually a matter 
of military necessity, because the more you're reliant on a 
fuel convoy, the more you're stuck to lines of communication; 
and you've what that's--happened to us in Iraq and Afghanistan.
    Senator Shaheen. Right.
    General Dempsey. Let me take on board the opportunity to 
engage you on that more coherently or articulately to let you 
know what we're doing and to seek your advice on what more we 
might do.
    Senator Shaheen. Good. I will definitely take you up on 
that.
    General Dempsey. Okay.
    Senator Shaheen. At this point, my time has expired. Since 
I am the last remaining Senator, I would like to again thank 
you. Thank you for being here, for your candor in your 
responses, and for your willingness to continue to serve.
    At this point, the hearing is adjourned.
    [Whereupon, at 11:37 a.m., the committee adjourned.]

    [Prepared questions submitted to GEN Martin E. Dempsey, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. None. The Goldwater-Nichols Act has worked quite well in 
making the armed services an integrated joint force.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have over 35 years of experience in Army, Joint, and 
Coalition organizations from the tactical to the strategic levels of 
command, all of which have allowed me to see our Army at work in a 
broad variety of capacities and missions. Some of my most relevant 
experiences have been during periods of deployment when we have faced 
significant threats to our Nation's security. I served as a field grade 
officer during Operation Desert Shield/Operation Desert Storm and then 
Operation Iraqi Freedom as the Commanding General of 1st Armored 
Division. Later as the Commanding General, Multi-National Security 
Transition Command-Iraq training Iraqi Security Forces, I experienced 
firsthand the importance of preparing our Army for joint and combined 
operations. Returning from Iraq, I served as Deputy and then Acting 
Commander of U.S. Central Command. Most recently, as the Commanding 
General for Training and Doctrine Command, I have had an opportunity to 
reinforce the training ethos of our Army as we look toward an uncertain 
future. I have travelled across our Army and at every turn have seen 
the sacrifices of our soldiers and their families. Our soldiers are the 
best the world has ever seen, and they remain fiercely dedicated to our 
Nation and its security. If confirmed by this Senate, I would be 
honored to serve as their Chief of Staff.

                                 DUTIES

    Question. Sections 601 and 3033 of title 10, U.S.C., establishes 
the responsibilities and authority of the Chief of Staff of the Army.
    What is your understanding of the duties and functions of the Chief 
of Staff of the Army?
    Answer. The Chief of Staff, Army serves as the senior military 
advisor to the Secretary of the Army in all matters and has 
responsibility for the effective and efficient functioning of Army 
organizations and commands in performing their statutory missions.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary McHugh would prescribe for you?
    Answer. I expect that Secretary McHugh would prescribe the 
following duties for me if I am confirmed as the Chief of Staff of the 
Army:

    (a)  Serve as the senior military leader of the Army and all of its 
components;
    (b)  Assist the Secretary with his external affairs functions, 
including presenting and justifying Army policies, plans, programs, and 
budgets to the Secretary of Defense, Executive Branch, and Congress;
    (c)  Assist the Secretary with his compliance functions, including 
directing The Inspector General to perform inspections and 
investigations as required;
    (d)  Preside over the Army staff and ensure the effective and 
efficient functioning of the headquarters, to include integrating 
Reserve component matters into all aspects of Army business;
    (e)  Serve as a member of the Joint Chiefs of Staff and provide 
independent military advice to the Secretary of Defense, President, and 
Congress. To the extent that such action does not impair my 
independence as the Chief of Staff of the Army, in my performance as a 
member of the Joint Chiefs of Staff, I would keep the Secretary of the 
Army informed of military advice rendered by the Joint Chiefs of Staff 
on matters affecting the Department of the Army. I would inform the 
Secretary of the Army of significant military operations affecting his 
duties and responsibilities, subject to the authority, direction, and 
control of the Secretary of Defense;
    (f)  Represent Army capabilities, requirements, policy, plans, and 
programs in joint fora;
    (g)  Supervise the execution of Army policies, plans, programs, and 
activities and assess the performance of Army commands in the execution 
of their assigned statutory missions and functions; and
    (h)  Task and supervise the Vice Chief of Staff, Army, the Army 
Staff and, as authorized by the Secretary of the Army, elements of the 
Army Secretariat to perform assigned duties and responsibilities.

    Question. What duties and responsibilities would you plan to assign 
to the Vice Chief of Staff of the Army?
    Answer. The Vice Chief of Staff of the Army would be responsible 
for providing advice and assistance in the execution of my 
responsibilities for those missions and functions related to manpower 
and personnel; logistics; operations and plans; requirements and 
programs; intelligence; command, control and communications; and 
readiness.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Army?
    Answer. If confirmed as the Chief of Staff, I will continually 
assess my ability to perform my duties and, if necessary, implement 
measures aimed at improving my ability to lead our Army.

                             RELATIONSHIPS

    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, as the head of the Department of 
Defense and the principal assistant to the President in all matters 
relating to the Department of Defense, issues guidance and direction to 
the Military Departments. If confirmed, I will be responsible to the 
Secretary of Defense and his Deputy, through the Secretary of the Army, 
for the operation of the Army in accordance with such directives. As a 
member of the Joint Chiefs of Staff, I will serve as a military adviser 
to the Secretary of Defense as appropriate. I will cooperate fully with 
the Secretary of Defense to ensure that the Army properly implements 
the policies established by his office. In coordination with the 
Secretary of the Army, I will communicate with the Secretary of Defense 
in articulating the views of the Army.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Secretary of Defense also delegates to him full power and authority to 
act for the Secretary of Defense and exercise the powers of the 
Secretary on any and all matters for which the Secretary is authorized 
to act pursuant to law. If confirmed, I will be responsible to the 
Secretary of Defense, and to his deputy, through the Secretary of the 
Army, for the operation of the Army in accordance with such directives. 
Also, in coordination with the Secretary of the Army, I will 
communicate with the Deputy Secretary of Defense in articulating the 
views of the Army. I will work closely with them to ensure that the 
Army is administered in accordance with the guidance and direction 
issued by the Office of the Secretary of Defense.
    Question. The Under Secretaries of Defense.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretaries perform responsibilities that require them, from time to 
time, to issue guidance--and in the case of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, direction--to the 
military departments. If confirmed, in coordination with the Secretary 
of the Army, I will communicate with the Under Secretaries in 
articulating the views of the Army. I will work closely with them to 
ensure that the Army is administered in accordance with the guidance 
and direction issued by the Office of the Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Subject to the authority, direction, and 
control of the President and the Secretary of Defense, the Chairman 
plans the strategic direction and contingency operations of the armed 
forces; advises the Secretary of Defense on requirements, programs, and 
budgets identified by the commanders of the combatant commands; 
develops doctrine for the joint employment of the Armed Forces; reports 
on assignment of functions (or roles and missions) to the Armed Forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as may 
be prescribed by law or by the President or Secretary of Defense.
    In conjunction with the other members of the Joint Chiefs, the 
Chief of Staff of the Army assists the Chairman in providing military 
advice to the President, the National Security Council, and the 
Secretary of Defense. If confirmed as a member of the Joint Chiefs of 
Staff, I will provide my individual military advice to the President, 
the National Security Council, and the Secretary of Defense. If 
confirmed, as a member of the Joint Chiefs of Staff, it would be my 
duty to provide frank and timely advice and opinions to the Chairman to 
assist in his performance of these responsibilities. As appropriate, I 
will also provide advice in addition to or in disagreement with that of 
the Chairman. I will establish and maintain a close and professional 
relationship with the Chairman, and will communicate directly and 
openly on policy matters involving the Army and the Armed Forces as a 
whole.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff assists the 
Chairman in providing military advice to the Secretary of Defense and 
the President. If confirmed as a member of the Joint Chiefs of Staff, 
it would be my duty to ensure that the Vice Chairman is provided my 
frank views and opinions to assist him in his performance of his 
responsibilities.
    Question. The Secretary of the Army.
    Answer. If confirmed, my relationship with the Secretary of the 
Army would be close, direct, and supportive. Within the Department of 
the Army, a large part of my responsibility as Chief of Staff would be 
to serve as the Secretary's principal military adviser. My 
responsibilities would also involve communicating the Army Staff's 
plans to the Secretary and supervising the implementation of the 
Secretary's decisions through the Army Staff, commands and agencies. In 
this capacity, my actions would be subject to the authority, direction, 
and control of the Secretary. In my capacity as a member of the Joint 
Chiefs of Staff, I would also be responsible for appropriately 
informing the Secretary about conclusions reached by the Joint Chiefs 
of Staff and about significant military operations, to the extent such 
action does not impair independence in the performance of my duties as 
a member of Joint Chiefs of Staff. I anticipate that I would work 
closely and in concert with the Secretary to establish the best 
policies for the Army in light of national interests.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant and performs such duties and exercises 
such powers as the Secretary prescribes. His responsibilities require 
him, from time to time, to issue guidance and direction to the Army 
Staff. If confirmed, I will be responsible to the Secretary, and to the 
Under Secretary for the operation of the Army in accordance with such 
directives. I will cooperate fully with the Under Secretary to ensure 
that the policies established by the Office of the Secretary of the 
Army are properly implemented. I will communicate openly and directly 
with the Under Secretary in articulating the views of the Army Staff, 
commands, and agencies.
    Question. The Vice Chief of Staff of the Army.
    Answer. The Vice Chief of Staff of the Army serves as the principal 
advisor and assistant to the Chief of Staff. If confirmed, I will 
establish and maintain a close, professional relationship with the Vice 
Chief of Staff, Army.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with each 
of the Assistant Secretaries to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we deal 
together with the day-to-day management and long-range planning 
requirements facing the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. His/Her duties include coordinating legal and 
policy advice to all members of the Department regarding matters of 
interest to the Secretariat, as well as determining the position of the 
Army on any legal question or procedure, other than military justice 
matters, which are assigned to The Judge Advocate General. If 
confirmed, I will establish and maintain a close, professional 
relationship with the General Counsel to assist in the performance of 
these important duties.
    Question. The Inspector General of the Army.
    Answer. The Inspector General is responsible for inspections and 
certain investigations within the Department, such as inquiring into 
and reporting to the Secretary and the Chief of Staff regarding 
discipline, efficiency, and economy of the Army with continuing 
assessment of command, operational, logistical, and administrative 
effectiveness; and serving as the Department of the Army focal point 
for Department of Defense Inspector General inspections and noncriminal 
investigations, as well as the Department of Defense inspection policy. 
If confirmed, I will establish and maintain a close, professional 
relationship with the Inspector General to ensure effective 
accomplishment of these important duties.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General is the military legal advisor to 
the Secretary of the Army and all officers and agencies of the 
Department of the Army. The Judge Advocate General provides legal 
advice directly to the Chief of Staff and the Army Staff in matters 
concerning military justice, environmental law; labor and civilian 
personnel law; contract, fiscal, and tax law; international law; and 
the worldwide operational deployment of Army forces. The Chief of Staff 
does not appoint The Judge Advocate General, and does not have the 
personal authority to remove him. This enables The Judge Advocate 
General to provide independent legal advice. If confirmed, I will 
establish and maintain a close, professional relationship with the TJAG 
as my legal advisor and I will assist him in the performance of his 
important duties as the legal advisor to the Secretary of the Army.
    Question. The Chief of the National Guard Bureau.
    Answer. The National Guard Bureau is a joint bureau of the 
Department of the Army and Department of the Air Force. Appointed by 
the President, he serves as principal adviser to the Secretary of 
Defense through the Chairman of the Joint Chiefs of Staff on National 
Guard matters. The Chief, National Guard Bureau is also the principal 
advisor to the Secretary of the Army and the Chief of Staff on matters 
relating to the National Guard. If confirmed, I will establish and 
maintain a close, professional relationship with the Chief, National 
Guard Bureau to foster an environment of cooperative teamwork between 
the Army Staff and the National Guard Bureau, as we deal together with 
the day-to-day management and long-range planning requirements facing 
the Army.
    Question. The Director of the Army National Guard.
    Answer. The Director, Army National Guard is responsible for 
assisting the Chief, National Guard Bureau and Vice Chief, National 
Guard Bureau in carrying out the functions of the National Guard 
Bureau, as they relate to the Army National Guard. If confirmed, I will 
establish and maintain a close, professional relationship with the 
Director, Army National Guard to foster an environment of cooperative 
teamwork between the Army Staff and the National Guard Bureau. This 
will be essential as we deal together with the day-to-day management 
and long-range planning requirements facing the Army to sustain and 
improve Army National Guard's operational capabilities.
    Question. The Chief of the Army Reserve.
    Answer. The Chief, Army Reserve is responsible for justification 
and execution of the personnel, operation and maintenance, and 
construction budgets for the Army Reserve. As such, the Chief, Army 
Reserve is the director and functional manager of appropriations made 
for the Army Reserve in those areas. If confirmed, I will establish and 
maintain a close, professional relationship with the Chief, Army 
Reserve as we deal together with the day-to-day management and long-
range planning requirements facing the Army to sustain and improve the 
Army Reserve operational capabilities.
    Question. The Chiefs of the Other Services.
    Answer. If confirmed, as a member of the Joint Chiefs of Staff, it 
would be my duty to engage in frank and timely exchanges of advice and 
opinions with my fellow Service Chiefs. I look forward to developing 
strong working relationships with these colleagues.
    Question. The Combatant Commanders.
    Answer. Subject to the direction of the President, the combatant 
commanders perform their duties under the authority, direction, and 
control of the Secretary of Defense, and are directly responsible to 
the Secretary of Defense for the preparedness of their commands to 
carry out missions assigned to them. As directed by the Secretary of 
Defense, the Service Secretaries assign all forces under their 
jurisdiction to the unified and specified combatant commands or to the 
U.S. element of the North American Aerospace Defense Command, to 
perform missions assigned to those commands. In addition, subject to 
the authority, direction, and control of the Secretary of Defense and 
the authority of combatant commanders under title 10, U.S.C., section 
164(c), the Service Secretaries are responsible for administering and 
supporting the forces that they assign to a combatant command. If 
confirmed, I will cooperate fully with the combatant commanders in 
performing these administrative and support responsibilities. I will 
establish close, professional relationships with the combatant 
commanders and communicate directly and openly with them on matters 
involving the Department of the Army and Army forces and personnel 
assigned to or supporting these commands.

                         VISION FOR THE FUTURE

    Question. What is your vision for the Army of today and the future?
    Answer. The Army will remain a critical component of the Joint 
Force, providing an affordable mix of tailorable and networked 
organizations operating on a rotational cycle, providing a sustained 
flow of trained and ready land forces for full spectrum operations, 
prepared for unexpected contingencies and at a tempo that will sustain 
our All-Volunteer Force.
    Question. What roles do you believe the Army should play in 
contingency, humanitarian, and stability operations?
    Answer. We are capable of executing contingency, humanitarian or 
stability operations, as directed by the President or Secretary of 
Defense, under the control of the appropriate Combatant Commander. We 
are also capable of assisting our international partners in building 
their own operational capacity. Through security force assistance, we 
can increase the ability of other nations to uphold the rule of law, 
ensure domestic order, protect its citizens during natural disasters, 
and avoid conflicts, which would otherwise require U.S. military 
support.
    Question. Do you see any unnecessary redundancy between Army and 
Marine Corps ground combat forces, particularly between Army light or 
medium weight divisions and Marine Corps divisions?
    Answer. No. We each have unique but complementary capabilities that 
provide the National Command Authority with options for dealing with 
emerging threats and contingencies.

                      ARMY ROLE IN THE JOINT FORCE

    Question. The U.S. military fights as a joint force and strives to 
achieve realistic training in preparation for military operations. The 
Army provides trained and equipped forces for joint military 
operations.
    How do you believe the Army can best contribute to improved joint 
military capabilities while preserving its service unique capabilities 
and culture?
    Answer. The Army works our relationships with Sister Services 
diligently while maintaining our unique values, culture, and 
traditions. The Army provides forces for prompt and sustained combat 
operations on land as a component of the Joint Force. Through sustained 
operations on land and among populations, we make permanent the 
advantages gained by joint forces.

                    MAJOR CHALLENGES AND PRIORITIES

    Question. In your view, what are the major challenges that will 
confront the next Chief of Staff of the Army?
    Answer. We have to win our current conflicts while simultaneously 
preparing for future security challenges. We must take care of our 
soldiers, our wounded, and their families. We must meet this challenge 
in an environment that demands more efficient use of limited resources.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Army, with support from Congress, is already working to 
understand and address many of these challenges. Although we don't have 
all the answers yet, it is clear that to be prepared for an 
increasingly complex and unpredictable future, we need thinking, 
adaptable, and resilient leaders. Investments in our human capital, 
both uniformed and civilian, coupled with a sustainable rotational 
force structure model, will ensure we are postured to meet the 
challenges of the future.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Army?
    Answer. At this point, I am not aware of any problems that would 
impede the performance of the Chief of Staff of the Army.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I am committed to working to ensure that our management 
systems are maintained or refined to meet challenges facing the Army. I 
have not yet determined specific plans to modify systems currently in 
place or under revision but if confirmed will carefully assess how we 
execute our management functions to ensure appropriate stewardship of 
our resources.
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, I look forward to the opportunity to talk 
with the Secretary of the Army, to develop priorities for our force. In 
my current position, I've asserted that we must be a learning 
organization, we must make training credible and relevant at home 
station so that it replicates more closely the challenges of the 
operational environment, and we must develop our leaders differently. 
It's also clear that we must work to preserve the All-Volunteer Force, 
care for our Wounded Warriors, continue to work to deliver Full 
Spectrum Capabilities, and transform systems and processes to build 
true adaptability into our institution.

                           ACQUISITION ISSUES

    Question. Major defense acquisition programs in the Department of 
the Army and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. A variety of factors contribute to increased risks of cost 
increase and delay, depending on the program, the technologies 
involved, and the acquisition strategy employed. However, I agree that 
the foundation for any successful large acquisition program rests on 
carefully refined requirements, a sound program strategy, and funding 
stability.
    Question. What steps, if any, do you believe the Army should take 
to address funding and requirements instability?
    Answer. Requirements must be carefully refined to meet realistic 
and affordable objectives, and they must account for the rate of 
technological and scientific change in meeting needed capabilities.
    Question. What is your view of the Configuration Steering Boards 
required by statute and regulation to control requirements growth?
    Answer. I support efforts by Congress to control costs, refine 
requirements, and reduce program risk in our major acquisition 
programs. The Configuration Steering Boards play a significant role in 
oversight of acquisition programs and compliment Army efforts to 
validate requirements and eliminate redundancies through Capability 
Portfolio Reviews. In tandem, these oversight processes help the Army 
avoid cost increases and delays in our programs.
    Question. What role would you expect to play in these issues, if 
confirmed as Army Chief of Staff?
    Answer. If confirmed as Chief of Staff, I will work diligently with 
the Secretary of the Army and the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology to ensure that all oversight 
mechanisms for acquisition programs are used effectively to reduce cost 
and schedule risk. In the area of requirements, I will work with TRADOC 
to refine requirements to meet affordable and achievable acquisition 
strategies.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. I agree that this assessment is valid with respect to some 
of the Army's past programs. However, the Army has already adopted 
different approaches in the development of more recent programs. I 
understand that prior to the release of the Ground Combat Vehicle (GCV) 
Request for Proposals (RFP) in November 2010, the program's 
requirements were carefully reviewed, prioritized and weighted in the 
RFP to avoid reliance on immature technologies, mitigate cost and 
schedule risk, and provide an achievable and affordable framework for a 
new vehicle. The GCV program involved close coordination between 
acquisition, requirements and resourcing experts to provide a solid 
program foundation. The Army is vigorously working to avoid the 
characterizations in the Comptroller General's assessment in future 
programs.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. The Department of the Army has already begun taking 
significant steps to address these concerns. There is a renewed 
emphasis on collaboration between the requirements and acquisition 
communities in the development of new programs. Last year, Secretary 
McHugh commissioned a thorough review of the Army's acquisition process 
led by The Hon. Gil Decker and Gen (Ret.) Lou Wagner that provides a 
blueprint for improvements to the acquisition process. I understand the 
Army is now studying these recommendations and developing a plan to 
implement those that help our process. As a whole, the Department must 
continue to build on these efforts to avoid unnecessary cost and delay 
in our programs.
    Question. What role would you expect to play in these issues, if 
confirmed as Army Chief of Staff?
    Answer. If confirmed as Chief of Staff, I will continue to work 
with Department of the Army leadership to implement any necessary 
changes to ensure that the Army's acquisition programs succeed in 
providing needed capabilities to our soldiers.
    Question. Beginning in 2010, the Army began a series of 
capabilities portfolio reviews that have contributed to the 
rationalization of the Army's modernization plans and resulted in 
significant programmatic decisions, including the termination of major 
weapons programs.
    What is your understanding and assessment of the Army's 
capabilities portfolio reviews and process?
    Answer. The capabilities portfolio reviews have been successful in 
identifying redundancy and finding efficiencies across system 
portfolios. The Army is now studying how to best institutionalize the 
capabilities portfolio reviews process to identify additional 
efficiencies, and then work to achieve them.
    Question. If confirmed, what actions would you take, if any, to 
institutionalize the portfolio review process within the Army?
    Answer. If confirmed, I look forward to reviewing the studies to 
institutionalize portfolio review process to identify and achieve 
further Army efficiencies.

                           ARMY MODERNIZATION

    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. According to press reports, a recent modernization study 
done for the Secretary of the Army by former Assistant Secretary of the 
Army Gilbert Decker and retired Army General Louis Wagner found that 
the Army has spent $3.3 billion to $3.8 billion annually since 2004 on 
weapons programs that have been cancelled.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. Over the last 10 years, our Army has achieved a remarkable 
degree of modernization in areas such as improving soldier protection, 
increasing battlefield intelligence, and bringing the network to 
individual soldiers. At the same time, we have nearly completed the 
modular conversion of over 300 brigade level organizations and to 
complete the conversion of our division and higher level headquarters 
to enable mission command in the operational environments we anticipate 
in the first half of the 21st century. If confirmed, I look forward to 
studying the Decker-Wagner recommendations to identify areas where we 
can improve.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. I recognize that a stable modernization strategy and 
program is an important component to both a balanced Army and to 
exercise good stewardship of resources entrusted to the Services. If 
confirmed, I will work closely with Secretary McHugh on how to achieve 
this.
    Question. What is your understanding and assessment of the Army's 
current modernization investment strategy?
    Answer. While it is true that several of our major modernization 
efforts over the past decade have been unsuccessful, I would submit 
that the American soldier today is the best equipped and enabled 
soldier this country has ever fielded. Successes such as the Stryker 
vehicle, world class body armor, soldier night vision equipment, 
soldier weapons, precision fire systems such as Excalibur and High 
Mobility Artillery Rocket System, and vehicles such as the family of 
medium trucks all suggest to me that the Army has had some tremendous 
success in modernization.
    I believe the Army has learned some valuable lessons and now has 
both the processes and the mindset to more carefully and rigorously 
review programs both before we initiate them and while they are in 
progress. This will be an area I will assess more deeply if I am 
confirmed as Chief of Staff and will periodically give this committee 
my frank assessments.
    Question. Do you believe that this strategy is affordable and 
sustainable?
    Answer. If confirmed, I plan to closely examine this strategy to 
ensure it is affordable and sustainable.
    Question. In your view does the Army's current modernization 
investment strategy appropriately or adequately address current and 
future capabilities that meet requirements for unconventional or 
irregular conflict?
    Answer. From my current position, I believe the current 
modernization investment strategy strikes an appropriate balance 
between current and future capabilities. If confirmed, I look forward 
to studying this further with the Army staff.
    Question. Does the investment strategy appropriately or adequately 
address requirements for conventional, high-end conflict with a peer or 
near-peer enemy?
    Answer. From my current position, I believe the current 
modernization investment strategy appropriately and adequately 
addresses requirements for conventional, high-end conflict with the 
peer or near-peer enemy we can reasonably foresee in the fiscal year 
2012-2016 FYDP time horizon.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue with respect to unconventional or conventional 
capabilities?
    Answer. I have not yet formulated investment initiatives particular 
to either conventional or unconventional capabilities that are 
different from those the Army is currently pursuing, but I look forward 
to doing so, if confirmed.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. To be good stewards of the resources provided, the Army 
must continue to internalize a ``cost culture'' that considers 
``affordability'' as an essential element of all (not just 
modernization) initiatives. If confirmed, I intend to work closely with 
the Secretary to ensure future initiatives are affordable within 
current and projected budgets.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. While I do not have that information at this time, I 
believe trade-offs must occur after all areas of risk are carefully 
considered and coordinated with the Secretary of Defense and Congress.

                      ARMY WEAPON SYSTEM PROGRAMS

    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Ground Combat Vehicle (GCV).
    Answer. In the development of the Ground Combat vehicle--the 
replacement for the Bradley Infantry Fighting vehicle--the Army is 
fully committed to the ``Big Four'' imperatives: soldier protection; 
soldier capacity (squad plus crew); the capability to operate across 
the Full Spectrum of operations; and Timing (7 years to the first 
production vehicle from contract award). The Ground Combat Vehicle will 
be the first vehicle that will be designed from the ground up to 
operate in an Improvised Explosive Device (IED) environment. Modular 
armor will allow commanders the option to add or remove armor based on 
the current threat environment. The Ground Combat Vehicle will be 
designed with the capacity for Space, Weight, and Power growth to 
incorporate future technologies as they mature. The Army is using an 
incremental strategy for the Ground Combat Vehicle with the first 
increment being an Infantry Fighting Vehicle. The Army is currently 
reviewing proposals from vendors for Technology Development contracts.
    Question. Warfighter Information Network-Tactical (WIN-T).
    Answer. I believe that the Warfighter Information Network-Tactical 
is one of the Army's most important programs. It provides the broadband 
backbone communications for the tactical Army. Warfighter Information 
Network-Tactical Increment 1 (formerly Joint Network Node) began 
fielding in 2004 to provide a satellite based Internet Protocol network 
down to battalion level. Warfighter Information Network-Tactical 
Increment 2 begins fielding in fiscal year 2012 to provide an initial 
On the Move capability, extending down to company level. Warfighter 
Information Network-Tactical Increment 3 will provide improved 
capabilities, including higher throughput, three to four times more 
bandwidth efficiency, and an aerial transmission layer, to all 126 
brigades/division headquarters with an on-the-move requirement.
    Question. Early-Infantry Brigade Combat Team (E-IBCT) Network 
Integration Kit (NIK).
    Answer. The E-IBCT investment provides the infrastructure that will 
allow the Army to grow the tactical network capability, and an 
opportunity for both large and small companies to support the Army's 
tactical network strategy.
    The NIK is a necessary bridge solution that allows the Army to 
continue evaluation and development of incorporated network 
technologies.
    Question. Joint Tactical Radio System (JTRS) including the Ground 
Mobile Radio (GMR) and Handheld, Manpack, and Small Form Fit (HMS) 
radios.
    Answer. Joint Tactical Radio System is the Services' future 
deployable, mobile communications family of radios. They provide Army 
forces dynamic, scalable, on-the-move network architecture, connecting 
the soldier to the network. Fiscal year 2012 procurement funding 
supports fielding of Joint Tactical Radio System capability to eight 
Infantry Brigade Combat Teams to meet fiscal years 2013/2014 network 
requirements.
    The Ground Mobile Radio is the primary vehicular radio capability 
using the Wideband Networking Waveform and Soldier Radio Waveform to 
meet tactical networking requirements.
    The Man Pack and Rifleman Radio are the primary Joint Tactical 
Radio System capability for battalion and below tactical operations. 
The man pack supports the Soldier Radio Waveform and interoperates with 
legacy waveforms (Single Channel Ground and Airborne Radio Systems, 
Ultra High Frequency Satellite Communications). Rifleman Radio 
primarily serves the dismounted formation and utilizes the Soldier 
Radio Waveform to provide voice and individual location information 
from the dismounted soldier to the leader. The combination of the three 
radios helps the Army to push the network to the individual soldier.
    Question. Stryker combat vehicle, including the Double-V Hull 
initiative, procurement of more flat-bottom vehicles, and the Stryker 
mobile gun variant.
    Answer. The current Stryker vehicle has exceeded its Space, Weight 
and Power and Cooling (SWaP-C) limits due to add-on applique (armor and 
devices) required for ongoing combat operations. In the near term, it 
is imperative to increase crew protection with the Double-V-Hull (DVH) 
Stryker. In the mid-term, Stryker modernization will improve protection 
and mobility by recouping SWaP-C, enabling future growth and allowing 
integration of the emerging network for all Stryker variants. Fleet-
wide modernization for all variants upgrades protection, counter-IED, 
drive train, suspension, electrical power generation and management, 
and digital communications and network integration.
    Double-V Hull: Stryker Double-V Hull (DVH) is on track for June 
2011 fielding. The initial DVH test results are positive, indicating 
the vehicle will be ready for fielding as scheduled.
    Non-Double V Hull and Nuclear, Biological, and Chemical 
Reconnaissance Vehicle (NBCRV): The Army will procure 168 Stryker 
NBCRVs in fiscal years 2012 and 2013 for a total quantity of 284 (an 
Army Force Generation (ARFORGEN) model rotation quantity). These 
vehicles are in normal Hull configuration. The Stryker NBCRV provides a 
unique capability to the Joint Force including a critical mission of 
Homeland Defense, for which DVH protection is a lesser consideration.
    Stryker Mobile Gun System (MGS): The Army has procured and fielded 
142 of 335 MGS. In August 2009, the Army decided to not pursue 
additional MGS procurement at this time with forthcoming fleet-wide 
modernization.
    Question. Joint Light Tactical Vehicle (JLTV).
    Answer. The JLTV is a joint program with the U.S. Marine Corps, 
Navy, and the Army; the Australian Army is also currently a partner in 
the Technology Development phase. I believe that the JLTV is a vital 
program to fill the force protection and payload gaps not currently 
satisfied by the High Mobility Multipurpose Wheeled Vehicle. It will 
also fill the mobility, transportability and communication architecture 
gaps not satisfied by the Mine Resistant Ambush Protected (MRAP) 
vehicles being used in Light Tactical Vehicle (LTV) roles. The Army 
Tactical Wheeled Vehicle Strategy plans for the JLTV to replace about a 
third of the LTV fleet, which is roughly 46,000 vehicles. The Army is 
currently examining the attributes of the JLTV program to ensure it 
meets our needs for the future Army light tactical fleet, especially in 
terms of protection.
    Question. Armed Aerial Scout (AAS).
    Answer. I agree the Army has an enduring requirement for an armed 
aerial scout as was reaffirmed after the termination of the Armed 
Reconnaissance Helicopter (ARH) program.
    This requirement will be validated by the ongoing Armed Aerial 
Scout Analysis of Alternatives whose findings are scheduled for release 
in third quarter fiscal year 2011.
    Question. M1 Abrams tank modernization.
    Answer. In my view, the Abrams modernization is necessary and will 
initially enable integration of the emerging network and provide 
ability to fire the next generation of 120mm ammunition. Future 
modernization will provide capability improvements in lethality, 
protection, mission command, mobility, and reliability intended to 
maintain the Fleet's combat overmatch and restore space, weight, and 
power margins to keep the Tank relevant through 2050. The Abrams 
modernization program is funded in the fiscal year 2012 budget request. 
If confirmed, I will be able to offer an assessment as the program 
matures.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley Infantry Fighting Vehicle (IFV) will be 
replaced by the Ground Combat Vehicle beginning in 2018. Bradley Non-
Infantry Fighting Vehicle (Cavalry, Engineer and Fire Support variants) 
modernization will address recoupment of Space, Weight and Power to 
provide platform growth and enable improvements in protection, mobility 
and ability to integrate the emerging network.
    Question. Logistics Modernization Program (LMP).
    Answer. I understand the LMP is an Enterprise Resource Planning 
(ERP) system in the Operation and Support phase of its life-cycle.
    Based on commercial off-the-shelf SAP Corporation software 
technology, LMP provides the Army with an integrated end-to-end supply 
chain solution at the national level that improves overall 
synchronization of information.
    I concur with the Army's vision to achieve a seamless, end-to-end 
modernized logistics enterprise and to develop and implement logistics 
enterprise architecture with joint interoperability. To support that 
vision, the LMP will integrate with other Army ERPs, including General 
Funds Enterprise Business System (GFEBS), and Global Combat Support 
System-Army (GCSS-A), to provide a seamless enterprise-wide logistics 
environment spanning the factory to the foxhole in accordance with the 
approved Army ERP Strategy.
    Question. Paladin Integrated Management Vehicle program.
    Answer. I understand that the Paladin Integrated Management (PIM) 
program is an effort to address an existing capability gap in the self-
propelled artillery portfolio brought about by an aging fleet and the 
termination of prior howitzer modernization efforts [Crusader and Non-
Line-of-Sight-Cannon (NLOS-C)]. The PIM program provides upgrades that 
allow the Army to meet existing and future needs, and leverages the 
commonality with the Bradley Fighting Vehicle chassis and automotive 
components. PIM should provide growth potential in Space, Weight and 
Power and capacity for network expansion to accommodate future howitzer 
related needs, to include the addition of such Force Protection 
packages as add-on armor.
    Question. M4 Carbine Upgrades/Individual Carbine Competition.
    Answer. The Army continues to make improvements and upgrades based 
on operational lessons learned through the M4 Product Improvement 
Program. The Army's effort is designed to integrate full automatic 
firing, an ambidextrous selector switch and a more durable ``heavy'' 
barrel. Simultaneously, the Army has initiated a full and open 
competition to confirm the best possible Individual Carbine solution. 
Results of the competition are expected in fiscal year 2013.

            MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLES

    Question. If confirmed, what would you propose should be the Army's 
long term strategy for the utilization and sustainment of its large 
MRAP and MRAP-All Terrain Vehicle fleets?
    Answer. The Army needs to continue to provide the best level of 
protection for our deploying soldiers. Given what we have learned 
during the last 10 years, I believe we should attempt to provide MRAP 
levels of protection to deploying forces worldwide commensurate with 
the mission assigned. The Army will integrate MRAPs into the force.

                       QUADRENNIAL DEFENSE REVIEW

    Question. The 2010 report of the Quadrennial Defense Review (QDR) 
provides guidance that military forces shall be sized to prevail in 
ongoing conflicts in Afghanistan, Iraq, and the war against al Qaeda as 
well as for conducting foundational activities that prevent and deter 
attacks or the emergence of other threats.
    What is your assessment of the Army's current size and structure to 
meet the QDR report's guidance?
    Answer. The Army's size and structure have proven adequate to meet 
the demands of our defense strategy as we know them today, although a 
very heavy demand has been placed upon soldiers and their families for 
nearly 10 years. If confirmed, I would work closely with the Secretary 
of Defense, the Secretary of the Army, the Chairman of the Joint 
Chiefs, and our combatant commanders to match end strength, structure, 
and tempo in our ARFORGEN rotational model to meet demands as they 
change.
    Question. If confirmed, what size or structure changes would you 
pursue, if any, to improve or enhance the Army's capability to meet 
these requirements?
    Answer. The nature of the strategic environment requires the Army 
to continuously assess its capabilities and force requirements. It's 
taken 10 years to achieve a size, structure, and capability that we can 
reasonably describe as balanced. We are accustomed to change, and we 
will undoubtedly need to continue to change. As we do we must seek to 
maintain a balance of capabilities that are available to meet the 
Nation's needs at a sustainable tempo.
    Question. The QDR report particularly emphasizes the requirement 
for improved capabilities in the following six key mission areas.
    For each, what is your assessment of the Army's current ability to 
provide capabilities to support these mission requirements?
    If confirmed, what changes, if any, would you pursue to improve the 
Army's capabilities to support:
    Defense of the United States.
    Answer. The Army is fully capable of fulfilling its responsibility 
to defend the homeland through detection, deterrence, prevention, and 
if necessary, the defeat of external threats or aggression from both 
state and non-state actors. A specific program recently undertaken to 
enhance this ability include the fielding of the enhanced Stryker 
Nuclear Biological and Chemical Reconnaissance Vehicle. This provides 
us with a much improved technical assessment and decontamination 
capability.
    Question. Support of civil authorities at home.
    Answer. The Army is well postured to provide support to civil 
authorities. We are organized and trained to provide responsive and 
flexible support to mitigate domestic disasters, CBRNE consequence 
management, support to civilian law enforcement agencies, counter WMD 
operations and to counter narcotics trafficking activities. We continue 
to address the challenges associated with this mission set including 
unity of command, integration with civilian authorities, and the 
integration of Title 10 and Title 32 forces.
    Question. Succeed in counterinsurgency, stability, and 
counterterrorism operations.
    Answer. We are highly proficient in counter insurgency, stability 
and counter-terrorism operations. This has been the focus for the Army 
for much of the last 10 years and we have institutionalized lessons 
learned across the operating and generating force.
    Question. Build the security capacity of partner states (including 
your views, if any, on the use of general purpose forces in the 
security force assistance role).
    Answer. General Purpose Forces have a clear role in building 
sustainable capability and capacity of partner nation security forces 
and their supporting institutions. Peace time engagement is our best 
opportunity to shape the future operating environment. General Purpose 
Forces are well suited to support these activities through Security 
Force Assistance.
    Question. Deter and defeat aggression in anti-access environments.
    Answer. The Army's ability to deter and defeat aggression in anti-
access environments as part of the joint force is adequate to meet the 
demands of the current security environment. That said, there are some 
tasks and skills to which we have not trained due to the demands of our 
ongoing conflicts. We must restore our proficiency in those tasks. We 
work with our sister Services to assess our capabilities to conduct 
entry operations as part of the joint force and watch closely the 
improved anti-access/area denial capabilities being developed by 
potential adversaries.
    Question. Prevent proliferation and counter weapons of mass 
destruction.
    Answer. The Army provides highly trained and ready forces with 
capabilities to support combatant commander requirements to counter the 
proliferation of weapons of mass destruction. Current capabilities 
include operating effectively within a chemical, biological, 
radiological, and nuclear environment, specialized teams to locate and 
neutralize weapons of mass destruction (WMD), and an operational 
headquarters with expertise in eliminating WMD.
    Question. Operate effectively in cyberspace.
    Answer. We are on the right glide path to support U.S. Cyber 
Command and our geographic combatant commanders to operate effectively 
in cyberspace. On 1 October 2010, the Army stood up a new three star 
command (U.S. Army Cyber Command/2nd Army), to direct the operations 
and defense of all Army networks, and when directed, provide full-
spectrum cyberspace operations. The Army is bringing the forces of 
network operations, defense, exploitation, and attack under one 
operational level command to integrate and synchronize global 
operations for the first time.

                               MODULARITY

    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. Although somewhat smaller in size, modular combat brigades 
are supposed to be just as, or more capable than the divisional 
brigades they replace because they will have a more capable mix of 
equipment--such as advanced communications and surveillance equipment. 
To date, the Army has established over 90 percent of its planned 
modular units, however, estimates on how long it will take to fully 
equip this force as required by its design has slipped to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. The modular transformation strategy reorganizes Army 
brigades, divisions and corps headquarters, and theater armies and 
subordinate commands into standardized designs. 98 percent of all Army 
brigades have converted or are in the process of converting to modular 
design. The remaining 2 percent are projected to begin modular 
conversion by 2013. Modular transformation improves the Army's ability 
to meet combatant commander requirements and National Security Strategy 
objectives by providing tailorable formations and leaders who are 
accustomed to building teams based on changing requirements.
    Question. In your view, what are the greatest challenges in 
realizing the transformation of the Army to the modular design?
    Answer. The most significant challenge associated with modular 
transformation is the full fielding of authorized equipment. Although 
all units will be organized in a modular design by the end of fiscal 
year 2013, full fielding of some items of equipment will take longer.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy?
    Answer. If confirmed, we will continue to review Army plans and 
strategies, including the modular transformation strategy, to ensure 
the Army continues to provide the joint force with the best mix of 
capabilities to prevail in today's wars, engage to build partner 
capacity, support civil authorities, and deter and defeat potential 
adversaries. If confirmed, I will continue to assess Army structure 
against current and potential threats to provide the best mix of 
capabilities and the highest levels of modernization possible.
    Question. What is your understanding and assessment of the 
employment and performance of modular combat brigades and supporting 
units in Operations Iraqi Freedom, New Dawn, and Enduring Freedom?
    Answer. These modular capabilities increase the effectiveness of 
the Army by better supporting the needs of combatant commanders across 
the full spectrum of operations.
    Question. What changes, if any, would you propose to the modular 
design, the mix of combat and supporting brigades, or modular unit 
employment to improve performance or reduce risk?
    Answer. At Training and Doctrine Command, we are currently working 
with current and former commanders, to examine our organizations to see 
if they are the best we can provide. We are continuously looking at 
alternate force designs and force mixes to see how we can improve, in 
both effectiveness and efficiency, our force structure.
    Question. With respect to the Army's modular combat brigade force 
structure design, press reports indicate that the Army is reassessing 
its heavy and infantry brigade structures and may add a third maneuver 
battalion to each where there are only two battalions now.
    If confirmed, how would you propose to implement a decision to add 
a third maneuver battalion to the heavy and infantry combat brigades?
    Answer. We are examining the current brigade designs and associated 
force mix including the number and type of brigades. This will produce 
alternatives to be analyzed. As the results of this analysis emerge, we 
will make appropriate decisions on the implementation of any of such 
proposals and their affect on our available resources. No decisions 
have been made regarding future force design or force structure 
changes.

                        ACTIVE-DUTY END STRENGTH

    Question. The Army has increased its Active-Duty end strength over 
the last several years to meet current and what was believed to be the 
demands of future operational requirements. Authorized active duty Army 
end strength is now 569,400. The Secretary of Defense has announced 
Army Active-Duty end strength reductions beginning this year through 
2014 of 22,000 soldiers followed by another 27,000 beginning in 2015. 
The fiscal year 2012 budget starts this reduction by requesting 7,400 
fewer soldiers.
    In your view, what is the appropriate Army Active-Duty end strength 
needed to meet today's demand for deployed forces, increase nondeployed 
readiness, build strategic depth, and relieve stress on soldiers and 
their families?
    Answer. We are continuously assessing the factors that affect end 
strength including assigned missions, operational demands, unit 
readiness, soldier and family well-being, Reserve component capability 
and capacity, and fiscal constraints in order to determine required 
Active-Duty end strength. Our Active-Duty end strength is adequate to 
meet current demand. As future demand is better understood, we will 
assess its impact.
    Question. In your view, what is the appropriate Army Active-Duty 
end strength needed to meet the likely future demand for deployed 
forces, maintain nondeployed readiness, ensure ground force strategic 
depth, and avoid increasing stress on soldiers and their families?
    Answer. I am not yet prepared to provide you with an answer on 
future Army end strength.
    Question. Plans for the reduction of Army end strength assumes that 
the cuts will be made gradually over several years.
    What, in your view, are the critical requirements of the management 
of this end strength reduction to ensure that should strategic 
circumstances change the cuts can be stopped and, if necessary, 
reversed?
    Answer. End strength reductions are not automatic. They are 
conditions based and will require periodic assessment. If confirmed, I 
will work with Secretary McHugh and Army Leadership to develop a plan 
that will allow us to accomplish current and projected missions, 
balance the well-being of soldiers and families, and keep us prepared 
to meet unforeseen operational demands.
    Question. The gradual reduction of end strength may provide a hedge 
against an unforeseen contingency requiring sufficient and available 
Army forces, however, savings from the reduction of forces could be 
realized sooner and with greater long-term advantages with faster 
implementation.
    What, in your view, are the most important advantages and 
disadvantages of faster end strength reductions?
    Answer. The Army's deliberate and responsible draw-down plans will 
proceed at a pace necessary to ensure mission success, the well-being 
of soldiers and families, compliance with directed resource constraints 
and flexibility for unforeseen demands.
    The advantage of drawing down faster would be the flexibility to 
invest in other required areas. The disadvantages lie in the reduced 
flexibility for meeting unforeseen demands and the precision to 
maintain the skills and quality of the remaining force.
    Question. End strength reductions totaling 49,000 soldiers will 
also require force structure reductions as well.
    If confirmed, how would you propose to reduce Army force structure, 
if at all, to avoid the problems associated with a force that is over-
structured and undermanned?
    Answer. The Army is coordinating the end strength reductions with 
its deliberate Total Army Analysis process to ensure Army force 
structure contains required capability and capacity to meet current and 
future operational requirements within authorized end strength.
    Question. How will these planned end strength reductions impact the 
Army's plans for overseas basing of its units?
    Answer. In my present position, I have not had a chance to examine 
the potential impact of end strength reductions on overseas basing.
    Question. The Army has had two other major post-conflict end 
strength reductions in the last 40 years after Vietnam and after 
Operation Desert Storm.
    What, in your view, are the critical elements of the planning and 
management of a major force reduction to ensure that the health of the 
Army as a whole is not crippled impacting ongoing operations or general 
readiness?
    Answer. End strength reductions are conditions based and must be 
deliberate and responsible. The Army's plan should ensure 
accomplishment of its assigned missions, operational readiness for 
future demands, compliance with directed resource constraints while 
treating soldiers and their families with the dignity and respect they 
deserve.
    Question. If confirmed, what actions would you take to ensure that 
the planning and management of an end strength reduction minimize the 
negative impact on the readiness of the Army and soldier families?
    Answer. Throughout my entire career, I have focused on taking care 
of soldiers and families. If confirmed, I will look carefully at the 
impact on soldiers and families.
    Question. Does the Army have the legislative authority it needs to 
properly shape the force as part of the personnel drawdown?
    Answer. At this time, I am not aware of any additional legislative 
authority the Army needs to shape personnel drawdown. If confirmed, I 
will consult with Secretary McHugh and Senior Army personnel leadership 
to determine if additional authorities are necessary.

                             STRATEGIC RISK

    Question. Do you believe that the extended pace and scope of 
operations in Iraq and Afghanistan create increased levels of strategic 
risk for the United States based on the lack of availability of trained 
and ready forces for other contingencies?
    Answer. In my current position, I have not yet had the opportunity 
to examine strategic risk given our global demand. If confirmed as a 
member of the Joint Chiefs, I will have the opportunity to look closely 
at this issue.
    Question. If so, how would you characterize the increase in 
strategic risk in terms of the Army's ability to mobilize, deploy and 
employ a force for a new contingency? In your view, is this level of 
risk acceptable?
    Answer. As mentioned in the previous question, I have not yet had 
the opportunity to examine strategic risk.
    Question. What is the impact of the decision to increase Army 
forces committed to Afghanistan on our ability to meet our security 
obligations in other parts of the world?
    Answer. The impact is manageable as we have available forces in the 
Train/Ready pool of forces to meet potential future requirements with 
an acceptable degree of risk. The Army is currently meeting all 
requirements and mitigates the Afghanistan additional commitment with 
forces made available commensurate with the drawdown in Iraq. The Army 
continuously balances meeting current requirements against building/
maintaining strategic depth and capacity for contingency, full spectrum 
operations.
    Question. How and over what periods of time, if at all, will 
reductions to Army end-strength increase or aggravate this risk?
    Answer. These projected reductions, as mentioned by the Secretary 
of Defense in his 6 January announcement, are based on the condition of 
a decrease in demand. If confirmed, I will work with Secretary McHugh 
to ensure our force structure is adequate to meet all future demands.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. The Army has a mature planning process to determine force 
structure changes within the approved end strength for all Army 
components. If confirmed, I will work to ensure the full readiness of 
units generating to deploy to known operations in or in preparation for 
contingency operations.

          ``INSTITUTIONALIZING'' SUPPORT FOR IRREGULAR WARFARE

    Question. A major objective of the Department over recent years has 
been increasing emphasis on lower-end, irregular, counterinsurgency, 
and stability type operations. All of which are areas that place a high 
premium and demands on Army capabilities. In order to ensure that a 
rebalance achieves this objective, and perhaps more importantly is then 
sustainable, Secretary Gates has stressed the need for the Department 
to ``institutionalize and finance'' the support necessary for the 
irregular warfare capabilities that have been developed over the last 
few years and will be needed in the future.
    What, in your view, does it mean to ``institutionalize'' 
capabilities and support for irregular warfare capabilities in the 
Army?
    Answer. The Army views Irregular Warfare as an operational theme 
rather than a particular type of operation. We must be able to conduct 
Stability Operations, Counter-Insurgency, Counterterrorism, and Foreign 
Internal Defense and support the Special Operations Forces in 
unconventional warfare. I understand ``institutionalize'' to mean that 
the Army's operating forces and generating forces view operations under 
the theme of Irregular Warfare as a core capability. We must be able to 
execute missions across the full spectrum of conflict, to include 
irregular warfare.
    Question. What is your understanding and assessment of Army efforts 
to date to institutionalize and support these capabilities?
    Answer. The Army has institutionalized Irregular Warfare. We have 
an Irregular Warfare proponent within Training and Doctrine Command 
supported by an Irregular Warfare Fusion Cell that synthesizes Army 
Irregular Warfare efforts including those from the Army's Peacekeeping 
and Stability Operations Institute, Counter-Insurgency centers and 
others. The Army includes Irregular Warfare in our professional 
military education. The Army has built four Counter-Insurgency Centers, 
a Security Force Assistance training brigade, increased the military 
police, and significantly increased Special Operations and Civil 
Affairs forces.
    Question. In your view, what are the obstacles, if any, to 
institutionalizing this kind of support, and what will be necessary to 
overcome them?
    Answer. I have not seen any particular obstacles to 
institutionalizing this kind of support. The Army has to balance risk 
across the range of missions it may be called on to perform.
    Question. While force structure and program changes may be 
necessary, they are unlikely to prove sufficient to achieve full 
institutionalization. The greater challenge may be found in changing 
Army culture, attitudes, management, and career path choices, for 
example through adjustments to organization, training, doctrine, and 
personnel policies.
    In your view, what are the most important changes, if any, that 
might be necessary to complement programmatic changes in support of the 
further institutionalization of capabilities for irregular warfare in 
the Army?
    Answer. We have to retain the flexibility, adaptability, and 
agility to operate both in missions requiring maneuver over extended 
distances and in missions requiring the establishment of security over 
wide areas regardless of what kind of threats populate the battlefield.
    Question. Institutionalizing support for irregular, 
counterinsurgency, and stability capabilities in the force does not 
mean ignoring the requirement for the Army to be trained, equipped, and 
ready for major combat at the high-end of the full spectrum of 
operations.
    If confirmed, how would you propose to allocate the Army's efforts 
and resources to ensure that the force is prepared for major combat 
while at the same time it increases and institutionalizes support for 
irregular, counterinsurgency, and stability operations?
    Answer. We are training and educating our soldiers and leaders to 
understand that they must be capable of both combined arms maneuver and 
wide area security. In training, we replicate the threats and 
conditions they are likely to face in their next mission. For 10 years, 
that has meant irregular threats and conditions common in the wide area 
security role that supports counterinsurgency operations. As the demand 
for forces in Iraq and Afghanistan is reduced, we will introduce 
threats and conditions in training common in the combined arms maneuver 
role. The goal however is to avoid the false dichotomy of ``regular or 
irregular'' warfare. The future battlefield will be populated with 
hybrid threats--combinations of regular, irregular, terrorist, and 
criminal groups--and we must train and educate our leaders and units to 
understand and prevail against them.
    Question. Do you anticipate that the Army will continue to train 
and equip general purpose force brigades for the ``advise and assist 
brigade (AAB)'' mission after the wars in Iraq and Afghanistan come to 
an end?
    Answer. I anticipate that there will be an ongoing requirement for 
Security Force Assistance activities of the type carried out by these 
brigades into the future. I believe building partnerships and partner 
capacity will be key roles for the Army in the future. If confirmed, I 
will continue to assess requirements and work with this Congress to 
ensure we have the resources and flexibility required to meet them.
    Question. If so, what mission essential task list changes do you 
plan to institutionalize this mission set in training for the general 
purpose force brigades?
    Answer. If confirmed, I will work with our joint partners to 
identify the mission essential tasks for Security Force Assistance and 
incorporate them into the Unified Joint Task List and Army Unified Task 
List.
    Question. Do you foresee that general purpose force brigades will 
be regionally aligned to carry out an AAB-type mission?
    Answer. I believe it is too early to tell. I believe some brigades 
may be regionally aligned. The number and type of brigades will depend 
upon what we have available after the priority requirements in the 
CENTCOM AOR, and the other COCOM requirements. If confirmed I will work 
with Secretary McHugh to determine the best allocation to support 
operational requirements.
    Question. If so, what changes to training and equipping of the 
ARFORGEN model will be necessary for regional alignment?
    Answer. The ARFORGEN model and our modular design are well-suited 
to the kind of adaptations that will be required to meet security force 
assistance requirements in the future.

                            LESSONS LEARNED

    Question. What do you believe are the major lessons that the 
Department of the Army has and should have learned from Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) regarding its 
title 10, U.S.C., responsibilities for manning, training, and equipping 
the force?
    Answer. We have learned that soldiers require more than a year to 
fully recover from extended deployments and to prepare for another 
deployment. In addition, the ability to adapt rapidly is the key to 
success in the current and future operational environments. We have 
also learned that a fully integrated Reserve component is critical to 
meet force requirements.
    Question. If confirmed, which of these lessons, if any, would you 
address as a matter of urgent priority?
    Answer. They are equally important and all must be addressed.

                       ROTATION CYCLES/SCHEDULES

    Question. Although improving recently, the Active Army's ratio of 
time spent deployed to time at home station has remained fairly steady 
at 1:1--that is for each year deployed a soldier spends about 1 year at 
home station. The Active Army objective is 1:2 where soldiers can 
expect to be home for 2 years for each year deployed. The Reserve 
component objective is 1:5 where soldiers can expect to be home for 5 
years for each year deployed.
    What impact do you expect the proposed troop reductions in Iraq to 
have on the so-called ``dwell time'' of Army soldiers? Is it possible 
that the reduction of demand for Army forces in Iraq alone will allow 
the Army to achieve the 1:2 dwell time goal by the end 2011?
    Answer. The proposed troop reductions in Iraq will allow the Army 
to gradually increase dwell if there is not a significant increase in 
demand in Afghanistan or in other contingencies. We do not believe that 
the reduction of demand in Iraq alone will allow the Army to meet the 
1:2 dwell goal.
    Question. What is your assessment of the potential impact of the 
decision to decrease Army end-strength on the rotation schedule and 
meeting the dwell goal of 1:2 for Active-Duty Forces?
    Answer. With the proposed troop reduction in Iraq and projected 
decrease in Afghanistan, we will see improvement gradually in dwell, 
but the Army has not yet met its dwell goal of 1:2 for Active-Duty 
Forces. The decreases in Army strength are conditions based and I am 
not in a position at this time to assess whether there will be an 
impact to the dwell goal of 1:2 based on these reductions.
    Question. How, in your view, will the proposed reductions in Iraq 
impact the ability of the Army National Guard to respond to Homeland 
Defense and support to civil authorities?
    Answer. The return of these Army National Guard forces to state 
control should provide the Governors and Adjutants General with 
increased forces to conduct Homeland Defense, disaster response, and 
Defense Support of Civil Authorities. These forces will be better 
trained and more experienced due to their Iraq combat deployments. 
Although the National Guard has been able to meet all disaster relief 
requirements, the return of forces will allow more flexibility to 
accomplish local missions.

                         EQUIPMENT AVAILABILITY

    Question. Both deploying and nondeploying Active and Reserve 
component Army units are training without all their required equipment. 
Deploying units do not receive some of their equipment until late in 
their predeployment training cycle or as they arrive in theater.
    In your view, has deployment of additional brigades to Afghanistan 
increased the strain on maintenance systems and further reduce 
equipment availability for training?
    Answer. There have been some challenges with equipment being 
available for training when it has been fielded directly to theatre. 
We're beginning to overcome this challenge.
    Question. What is the impact of our drawdown from Iraq in this 
regard?
    Answer. The drawdown from Iraq should improve availability of 
equipment for units to conduct pre-deployment training. For some 
systems, such as tactical wheeled vehicles, it will have a larger 
positive impact. For other pieces of more high demand equipment in 
short supply across the Army, I anticipate it will have a lesser 
impact.
    Question. Do you believe that the Army has enough modern equipment 
to fully support the predeployment training and operations of deploying 
units?
    Answer. The Army does not have enough equipment to fill all units 
to their fully modernized capabilities. This means there are some 
instances in which the most modern equipment is not available until 
later in a unit's pre-deployment cycle or until it arrives in theater. 
However, the Army uses the force generation model to resource units 
with adequate levels of the available modernized equipment to conduct 
their pre-deployment training and assigned mission upon deployment.
    Question. What do you see as the critical equipment shortfalls for 
training and operations?
    Answer. The Army is short unmanned aerial systems and some non-
line-of-sight communications equipment. Due to the nature of the 
warfare in Afghanistan, we face shortages in light infantry specific 
equipment. As we continue to reset equipment returning from Iraq we 
will see a steady improvement in on hand equipment for units training 
for contingency force missions.
    Question. What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need to train and 
operate?
    Answer. If confirmed, I will continue our capability portfolio 
reviews to evaluate our priorities against mission requirements and 
adjust our resource allocations to ensure the Army continues to strike 
the critical balance between having enough modern equipment to fully 
support pre-deployment training and operations in theatre. If 
confirmed, I would support the Army Force Generation Model of phased 
equipping through which the Army intensively manages our equipment on-
hand to ensure next deploying units, from all components, have 
sufficient equipment for training and deployment.

                         EQUIPMENT REPAIR/RESET

    Question. Congress provided the Army with approximately $15 to $17 
billion annually to help with the reset of nondeployed forces and 
accelerate the repair and replacement of equipment. However, the amount 
of reset funding requested for DOD in fiscal year 2012 decreased to 
$11.9 billion from the fiscal year 2011 request of $21.4 billion.
    In your view, is this level of funding sufficient to not only 
prepare Army forces for operations in Afghanistan but to also improve 
the readiness of non-deployed forces for other potential contingencies?
    Answer. It is my understanding that the $4.4 billion requested for 
reset in fiscal year 2012, though lower than requests in fiscal year 
2010 and fiscal year 2011, is adequate to replace equipment lost in 
combat and to repair equipment available for reset. If confirmed, I 
will closely examine this issue.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. My understanding is that repair depots are operating at 
required capacity but not at their full capacity.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. There are certain measures, such as contract augmentation 
or rebalancing workload that could be used to increase capacity at our 
facilities. At this time, I am not in a position to determine whether 
these measures are necessary or appropriate.
    Question. What impact is it likely to have on the ability of Army 
National Guard (ARNG) units to respond to Homeland Security and support 
to civil authorities missions?
    Answer. I understand that the reduction of reset funding for fiscal 
year 2012 is commensurate with the reduction of troop and equipment 
levels supporting Operation New Dawn. I believe that the ARNG will 
still be able to respond to Homeland Defense missions and provide 
support to civil authorities.

                            MISSILE DEFENSE

    Question. The Department of Defense recently decided to terminate 
the Army's Surface-Launched Advanced Medium-Range Air-to-Air Missile, 
and not to proceed with procurement and fielding of the tri-national 
Medium Extended Air Defense System, two Army air and missile defense 
systems.
    Do you consider missile defense to be one of the Army's core 
missions?
    Answer. Yes. The Army has confirmed on many occasions that Air and 
Missile Defense is a core competency. Protection of our deployed forces 
is the priority. The Army provides this protection in coordination with 
our sister Services and coalition partners.
    Question. How do you believe the Army should manage the risks that 
result from these decisions?
    Answer. I believe the Army needs to continue to monitor the threat 
and prioritize required future capabilities to ensure we provide 
effective affordable solutions in a timely manner to our forces.
    Question. The Army has recently proposed transferring a number of 
its air and missile development programs to the Missile Defense Agency 
(MDA).
    In your view, what is of the proper relationship between the Army 
and the Missile Defense Agency?
    Answer. It is my understanding that the Army relies on the MDA to 
develop and produce the Ballistic Missile Defense System (BMDS). The 
Army works with MDA to provide those BMDS capabilities to the combatant 
commanders. The Army maintains a relationship with MDA through the 
Army/MDA Board of Directors and its four standing committees.
    Question. The Army has recently completed a review of its air and 
missile defense portfolio.
    In your view, what are or should be the Army's responsibilities, if 
any, with respect to development, procurement, and operation of missile 
defense systems?
    Answer. The Army's responsibilities depend on the type of missile 
defense system being developed and guidance from the Office of the 
Secretary of Defense.

                                 SPACE

    Question. The Army Space support to Strategic Command works closely 
with Air Force Space Command in getting space based communications to 
the warfighter. Recently the Army has begun to look at the possibility 
of expanding the scope of data that could be provided to the last 
tactical mile from space.
    In your view, what are the needs that the Army could address from 
space, and, if confirmed, how would you ensure that this is coordinated 
with OSD?
    Answer. While I am not yet in a position to provide an informed 
assessment, I understand that the importance of space programs 
continues to increase across DOD, and the Army needs to keep pace to 
fully leverage capabilities and ensure that space systems are 
appropriately prioritized within both DOD and the Department of the 
Army.
    Question. If confirmed, what would be your vision for the Army 
space forces in the future?
    Answer. While I am not yet in a position to provide an informed 
assessment, one of my priorities, if I am confirmed, is to position the 
Army to keep pace to fully leverage capabilities and ensure that space 
systems are appropriately prioritized and resourced.
    Question. The Army, as do all the Services, tends to lag behind in 
the acquisition of ground and other terminals to work with new 
satellite systems. Acquisition of GPS M-code capable equipment is just 
one example of where there is needed capability on orbit but terminals 
will not be available in a timely fashion to utilize the capability.
    What is your view on this lag and, if confirmed, what actions would 
you propose taking to resolve the lag?
    Answer. If confirmed, I would need to examine this issue more 
closely. While I understand that all of the Services have specific 
requirements to meet specific needs for their forces and that the Army 
depends heavily on these systems, I am not yet in a position to provide 
an informed assessment.

                     LOW DENSITY/HIGH DEMAND FORCES

    Question. If confirmed, how would you address the Army's management 
of low density units such as Special Operations Forces, military 
police, civil affairs, and others which are in extremely high demand in 
this new strategic environment?
    Answer. If confirmed, I would use the Total Army Analysis (TAA) to 
identify the capabilities necessary, within resource constraints, to 
achieve the full spectrum of missions expected of the Army. When 
requirements for additional low density/high demand capabilities are 
identified through this process, they are resourced within acceptable 
risk. This process will help determine where these capabilities should 
reside: the Active component, the Reserve component, or a mix of both. 
The Army balances the inventory of these low density units to ensure 
availability of an affordable mix of flexible forces capable of 
accomplishing the missions required within the most likely security 
environment.
    Question. Are there functional changes among the Active and Reserve 
components that you believe should be made?
    Answer. I am not yet aware at this time of any changes that may be 
necessary.

                             ARMY READINESS

    Question. How would you characterize Army readiness in its deployed 
and non-deployed units?
    Answer. I have some concerns about the readiness levels of deployed 
and nondeployed units. In the ARFORGEN model, deployed and deploying 
Army units are given the highest priority for manning, equipping and 
training to achieve the combatant commander's wartime/mission 
requirements. Nondeployed Army units are used to provide the additive 
resources to ensure that deployed and deploying Army units can meet 
mission requirements. This requires the Army to continue to do risk 
assessment so nondeployed units do not fall below an unacceptable level 
of risk.
    Question. Do you believe the current state of Army readiness is 
acceptable?
    Answer. In my opinion, the Army is prepared to accomplish current 
missions.
    Question. How do you see operations in Iraq and the war in 
Afghanistan impacting the readiness of Army forces that may be called 
upon to respond to an attack or another contingency?
    Answer. The current demand for Army forces coupled with the 
cumulative effect of nearly 10 years of conflict impacts the Army's 
flexibility to provide forces to other contingencies.

                    IRAQ AND AFGHANISTAN DEPLOYMENTS

    Question. Many soldiers are on their fourth and some their fifth 
major deployment to Iraq or Afghanistan. Beginning in August 2008 
Department of Defense policy has been to limit deployments for Active 
component soldiers and mobilization of Reserve component soldiers to 
not longer than 12 months.
    What is your assessment of the impact of multiple deployments of 
troops to Afghanistan and Iraq on retention, particularly among young 
enlisted and officer personnel after their initial active duty 
obligated service has been completed?
    Answer. The Army monitors retention very closely, given the high 
operational demand and multiple deployments that soldiers are 
experiencing. Statistics reveal that multiple deployments to 
Afghanistan and Iraq are not adversely impacting retention. Continuous 
improvements to Army benefits, such as world class healthcare advances 
for wounded soldiers, enhancements in family support programs, and 
additional monetary bonuses have encouraged large numbers of our 
soldiers to continue their commitments beyond their obligated service 
periods.
    Question. What are the indicators of stress on the force, and what 
do these indicators tell you about that level of stress currently? In 
addition to any other stress indicators that you address, please 
discuss suicide and divorce rates, drug and alcohol abuse, AWOLs, and 
rates of indiscipline.
    Answer. The indicators of stress on the force that the Army tracks 
continuously include: Reenlistments, Chapter separations, Divorce, 
Domestic Violence, Sexual Assault, Enlisted Desertion, AWOL offenses, 
Drug and Alcohol Enrollments, Drug Positives, Courts-Martial and 
suicides.
    I understand that Army discipline and misconduct rates, including 
desertion, absence without leave, and courts-martial have remained 
steady or declined in the past year. Other indicators of stress on the 
force, such as substance abuse and domestic violence have increased. 
However, the significant increase in the number of soldier suicides is 
of the greatest concern. Soldiers and their families continue to make 
significant personal sacrifices in support of our Nation. If confirmed, 
I am committed to providing soldiers and families with a quality of 
life commensurate with their service and to continuing Army efforts to 
develop multi-disciplinary solutions directed at mitigating risk 
behaviors and enhancing soldier and family fitness and resilience.
    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. I am concerned about the long-term health of the force if 
we are unable to achieve the appropriate deployment to dwell ratio for 
the deploying soldier. Adequate dwell time should help the visible and 
invisible wounds of this protracted conflict. If confirmed, I will 
closely monitor indicators of stress on the force and work to ensure 
that the Army has plans and programs to confront these issues 
appropriately.
    Question. The Chief of Staff of the Army, General Casey has stated 
that the Army is ``out of balance''.
    What is your understanding and assessment of the concept and 
efforts to achieve ``balance'' for the Army?
    Answer. I understand balance to be the Army's ability to sustain 
the Army's soldiers, families, and civilians, prepare forces for 
success in the current conflict, reset returning units to rebuild the 
readiness consumed in operations and to prepare for future deployments 
and contingencies, and transform to meet the demands of the 21st 
century. With the help of Congress, we have made significant progress 
over the past 3 years to restore balance.
    Question. If confirmed, what actions, if any, would you take to 
achieve and sustain Army ``balance''?
    Answer. If confirmed, I will work with Secretary McHugh and Army 
leadership to adopt measures and strategies to achieve and sustain 
balance. Building resilience among our forces will be one of my highest 
priorities.

              RESERVE COMPONENTS AS AN OPERATIONAL RESERVE

    Question. What is your understanding and assessment of the Army's 
Reserve Components as an Operational Reserve, as opposed to its 
longstanding traditional role as a Strategic Reserve?
    Answer. The demand for U.S. ground forces over this past decade has 
required continuous use of Active component (AC) and Reserve component 
(RC) forces in order to meet the Army's operational requirements. The 
RC is no longer solely Strategic Reserve. Current and projected demand 
for Army forces will require continued access to the RC. Mobilization 
and operational use of the RC will continue for the foreseeable future.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the Army Reserve and Army National Guard as a 
relevant and capable Operational Reserve?
    Answer. In my opinion, the Army must ensure continued access to the 
Reserves as an essential part of the Total Force. If confirmed, I will 
work to ensure they have the necessary training equipment to accomplish 
all missions. Maintaining an appropriate level of resourcing for the 
Operational Reserve and mobilizing these forces on a predictable and 
recurring basis will be challenges for the Army.
    Question. What are your views about the optimal role for the 
Reserve component forces in meeting combat missions?
    Answer. In my view, Reserve component forces play a critical role 
in enabling the Joint Force Commanders to meet assigned missions. 
Today's force is structured to balance maneuver capability in the 
Active component with a majority of the enablers in the Reserve 
component. This balance should provide capabilities to meet operational 
requirements.
    Question. In your view, should the Department of Defense assign 
homeland defense or any other global or domestic civil support missions 
exclusively to the Reserve?
    Answer. Reserve component forces are uniquely positioned to be the 
first responder to these missions: however, the Army's Total Force must 
be able to execute homeland defense or other global or domestic support 
missions.
    Question. In your view, how will predictable cycles of 1 year 
mobilized to 5 years at home affect the viability and sustainability of 
the All-Volunteer Reserve Force?
    Answer. Once the Army can restore its balance and stress on the 
force has been significantly reduced, a predictable cycle that ensures 
full recovery and training will support the viability and 
sustainability of the All-Volunteer Reserve Force. I think the exact 
ratio--whether 1:4 or 1:5--requires further analysis.

     MOBILIZATION AND DEMOBILIZATION OF NATIONAL GUARD AND RESERVES

    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness monitoring, errors 
caused by antiquated pay systems, limited transition assistance 
programs upon demobilization, and lack of access to members of the 
Individual Ready Reserve (IRR). Reserve Force management policies and 
systems have been characterized in the past as ``inefficient and 
rigid'' and readiness levels have been adversely affected by equipment 
stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Army Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. I understand the Army is currently reviewing all of its 
mobilization policies to ensure that the systems in place are effective 
and responsive for Reserve component soldiers. I believe Reserve 
components are a critical part of the Total Force, and if confirmed, I 
will continue the effort to ensure that Reserve component soldiers are 
mobilized and demobilized in the most effective and efficient way 
possible and that their needs and the needs of their families and 
employers are met.
    Question. What is your understanding and assessment of the 
sufficiency of current Reserve Force management policies?
    Answer. As I understand current Reserve Force management policies, 
the goal is to manage the force to produce a supply of units to the 
combatant commanders with a short-term goal of 1 year of mobilization 
every 5 years with a long-term goal of 1 year of mobilization every 6 
years. The challenge the Army has faced has been that demand has been 
greater than the supply and has caused the need for more frequent 
mobilizations. As operations in Iraq and Afghanistan start to draw-
down, the Army should be better able to attain the mobilization to 
dwell goals.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. The Army Force Generation Model fundamentally changes the 
way the Army builds unit readiness for mobilization requirements. The 
ARFORGEN model presents a structured progression of readiness through a 
multi-year long cycle.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. At present, I am not aware of a need to modify current 
statutory authorities to facilitate mobilization of the National Guard 
and Reserves. If confirmed, I will work with Secretary McHugh to review 
the statutory authorities to determine if they are sufficient.

                        INDIVIDUAL READY RESERVE

    Question. The Commission on the National Guard and Reserves has 
found that accessing the IRR as a viable source of manpower for the war 
was problematic, and that using the IRR as a solution for unit manning 
is a failed concept.
    What is your assessment of the value of the IRR to the All-
Volunteer Force?
    Answer. I believe the IRR has proven an invaluable asset to all 
Army components to support contingency operations around the world.
    Question. What are your views on the proper role of the IRR in Army 
force management planning?
    Answer. The IRR can serve as a source of experienced and highly-
skilled soldiers to help the Army meet critical skill and grade 
requirements.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Army's IRR recall policy?
    Answer. At this time, I do not have sufficient information to 
recommend changes to this policy. If confirmed, I will consider input 
from all components to determine the best IRR recall policy.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to active duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the Army's decision on that request?
    Answer. While this is an important part of the IRR mobilization, I 
do not have sufficient familiarity with this policy to recommend 
changes.
    Question. Recent studies of Army suicides show higher rates among 
the IRR.
    What should the Army and DOD do to address this concern?
    Answer. Suicides in the IRR are often more difficult to address 
because those soldiers are not affiliated with a unit. If confirmed, I 
will consider all methods to integrate IRR soldiers into the Army's 
Health Promotion/Risk Reduction efforts.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. In addition to health care costs, personnel and related 
entitlement spending continues its steep upward growth and is becoming 
an ever increasing portion of the DOD budget.
    If confirmed, what actions would you take to control the rise in 
the Army's personnel costs and entitlement spending?
    Answer. We need to strike a balance between preserving the All-
Volunteer Force, accomplishing operational missions and retraining an 
Army that is affordable to the Nation. If confirmed, I will work with 
the Secretary of the Army and the Secretary of Defense on how best to 
achieve it.
    Question. If confirmed, what actions would you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. My understanding is the President's budget is adequate to 
meet current personnel costs.
    Question. What would be the impact of a year-long continuing 
resolution on Army personnel funding?
    Answer. If the Army is given the flexibility to manage total 
resources (both Base and Overseas Contingency Operations (OCO) funds) 
to pay its force, then fiscal year 2011 continuing resolution will have 
minimal impact on military pay and allowances.

 MEDICAL AND DENTAL READINESS OF ARMY NATIONAL GUARD AND ARMY RESERVE 
                               PERSONNEL

    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. I believe the Army should develop and resource mechanisms 
to routinely identify screen and assess Reserve component medical 
readiness. If confirmed, I will work with Secretary of the Army, the 
Chief of Army Reserves, the Director of the Army National Guard, and 
the Surgeon General to develop policies for more effectively 
identifying personnel that are nondeployable for medical reasons.
    Question. How would you improve upon the Army's ability to produce 
a healthy and fit Reserve component?
    Answer. This is a very important issue, and I will work with the 
Army's Active and Reserve component leadership to assess whether there 
are challenges in this area. The Army is moving forward with a 
Comprehensive Soldier Fitness Program. If confirmed, I would determine 
how this program applies to Reserve component and National Guard 
soldiers.

         NATIONAL GUARD ORGANIZATION, EQUIPMENT, AND READINESS

    Question. What is your understanding and assessment of changes in 
the global and domestic roles and mission of the Army National Guard 
and the National Guard Bureau?
    Answer. The Army National Guard is a component of the Reserve and 
Total Force. It responds to emergencies within the United States and 
deploys to support contingency operations overseas. Throughout the last 
10 years, the Army National Guard has transformed from a Strategic 
Reserve to an operational Reserve. The National Guard, with the support 
of the National Guard Bureau, has proven critical to the Army's Total 
Force, and I believe it will continue to do so in the years ahead.
    Question. What is your understanding and assessment of the Army's 
commitment to fully fund 100 percent of National Guard equipment 
requirements? In your view, do Army processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
National Guard?
    Answer. I understand efforts are underway to modernize the Reserve 
components and to ensure they are equipped to fulfill their missions. 
If confirmed, I will examine the funding of the National Guard to 
ensure it receives the appropriate level of resources to maintain its 
role as a vital component of the Total Force.
    Question. If confirmed, how would you ensure that the resourcing 
needs of the Army National Guard are fully considered and resourced 
through the Army budget? In your view, what is the appropriate role for 
the Chief of the National Guard Bureau in this regard?
    Answer. If confirmed, I will work closely with the Chief, National 
Guard Bureau, to ensure that Army National Guard requirements/needs are 
appropriately synchronized with Army priorities and resourcing 
strategy.
    Question. What is your assessment of the effect, if any, of 
increasing the grade of the Chief of the National Guard Bureau to 
General (O-10)?
    Answer. The increase in grade reflects the significant 
responsibilities of the Chief of the National Guard Bureau.
    Question. In your opinion, should the Chief of the National Guard 
Bureau be a member of the Joint Chiefs of Staff?
    Answer. In my present role, I have not had the opportunity to 
consider this issue.
    Question. What is your understanding of the role and authority of 
the Director of the Army National Guard?
    Answer. The Director of the Army National Guard assists the Chief 
of the National Guard Bureau, organizing and managing its personnel and 
other resources to accomplish the responsibilities and functions. The 
Director of the Army National Guard assists in carrying out the 
functions of the National Guard Bureau as they relate to the Army.
    Question. In your view, should the Director of the Army National 
Guard be ``dual hatted'' as a Deputy Chief of Staff of the Army?
    Answer. In my present role, I have not had the opportunity to see 
how these positions would function together and have not formed an 
opinion.

                   ARMY SCIENCE AND TECHNOLOGY (S&T)

    Question. What do you see as the role that Army science and 
technology programs will play in continuing to develop capabilities for 
current and future Army systems?
    Answer. It is my understanding that the Army's science and 
technology investment strategy is shaped to foster invention, 
innovation, and demonstration of technologies for the current and 
future warfighter. The science and technology program should retain the 
flexibility to be responsive to unforeseen needs identified through 
current operations.
    Question. What in your view have been the greatest contributions, 
if any, of Army science and technology programs to current operations?
    Answer. I believe the most significant contribution the Army 
science and technology community has offered to current operations is 
the ability to use technology to significantly improve warfighter 
capabilities. Technological innovations have resulted in the rapid 
development and deployment of lightweight and adaptable Armor solutions 
that have been critical to addressing emerging threats, enhancing 
intelligence capabilities, and better protecting our deployed forces.
    Question. What metrics would you use, if confirmed, to judge the 
value and the investment level in Army science and technology programs?
    Answer. To judge the value and investment level in Army science and 
technology programs, I would use metrics that demonstrate improved 
warfighter capabilities; improve acquisition programs; and align 
technology development to warfighter requirements.
    Question. What new S&T areas do you envision the Army pursuing, for 
instance to lighten soldier load, and to improve the survivability and 
combat effectiveness of dismounted soldiers and ground vehicles?
    Answer. If confirmed, I will engage the Army's science and 
technology program and its stakeholders, including the acquisition 
community, Training and Doctrine Command and the combatant commanders 
to discuss the needs of the warfighter and the ``art of the possible'' 
for future technology-enabled capabilities to ensure the Army remains 
the best equipped force in the world.

  ARMY LABORATORIES AND RESEARCH, DEVELOPMENT AND ENGINEERING CENTERS 
                                 (RDEC)

    Question. How will you balance the role of Army laboratories 
between long-term fundamental research, support to current operations 
and the development of new capabilities to support current and future 
Army missions?
    Answer. The Army laboratories are science and technology performing 
organizations and as such have and will continue to play a major role 
in supporting current operations with best capabilities available. 
Through their broad range of investments in key strategic science and 
technology areas, they also provide critical new capabilities for 
soldiers.
    Question. If confirmed, how will you ensure that the Army 
laboratories and R&D centers have the highest quality workforce, 
laboratory infrastructure, resources, and management, so that they can 
continue to support deployed warfighters and develop next generation 
capabilities?
    Answer. Army laboratories and Research and Development Centers need 
to maintain the resources required to continue initiatives and 
advancements that support the warfighter. If confirmed, I will learn 
more about their operations and support efforts to improve best 
practices and workforce quality necessary for mission accomplishments.

                    ARMY TEST AND EVALUATION EFFORTS

    Question. In the past, the DOD Test Resource Management Center did 
not certify the Army's test and evaluation (T&E) budget due to 
identified shortfalls in T&E range sustainment, operations, and 
modernization.
    If confirmed, how will you ensure that the Army's T&E 
infrastructure is robust enough to test new systems and technologies 
and reliably verify their combat effectiveness and suitability?
    Answer. Testing is a crucial capability for maintaining the Army's 
combat edge and modernizing the force. I fully recognize the value of 
testing to ensure new technologies and equipment address the 
capabilities our warfighters need. If confirmed, I will work closely 
with the Army T&E community and the Office of the Secretary of Defense 
T&E leadership to ensure the Army's T&E infrastructure is adequately 
resourced to address testing requirements and maintain robust test 
capabilities.

               ARMY INFORMATION TECHNOLOGY (IT) PROGRAMS

    Question. What major improvements, if any, would you like to see 
made in the Army's development and deployment of major information 
technology systems?
    Answer. I believe the Army needs to implement and enforce technical 
standards, make acquisition of commercial off-the-shelf (COTS) or near-
COTS technology easier, and field new technology to operational forces 
more quickly. This is in line with the congressional mandate you gave 
us in section 804 of the 2010 NDAA.
    As Commanding General for Training and Doctrine Command, I helped 
establish a center for network integration at Fort Bliss, TX--the Army 
Evaluation Task Force (AETF). It will serve as the Network's primary 
test unit with a two-fold intent, to remove the integration burden from 
the operational units and to provide an operational venue to evaluate 
new technologies and network capabilities prior to fielding to 
operational units. The new capabilities they develop should ultimately 
provide the impetus for future acquisition and equipping decisions.
    Question. How will the consolidation of IT systems announced under 
Secretary Gates efficiency initiative reduce the IT support cost per 
user to the Army?
    Answer. I understand the two primary Army initiatives that fulfill 
Secretary Gates' mandate are Enterprise Email and consolidation of Army 
data centers. Implementation of these initiatives should help reduce 
the cost of information technology support to the Army.

                         HUMAN TERRAIN SYSTEMS

    Question. What is your understanding of the Army's plans to 
institutionalize the Human Terrain System (HTS) program? Given the 
proliferation of such capabilities across the Services, what are your 
views, if any, on developing a joint HTS capability?
    Answer. The Army has institutionalized the Human Terrain System as 
an enduring capability assigned to Training and Doctrine Command and 
funded capability starting in the fiscal year 2011. I believe there is 
merit to developing a joint capability. In September 2010, I directed a 
Training and Doctrine Command capability based assessment of all Socio-
cultural capabilities throughout the combatant commands and Services. 
The intent is to identify other ongoing socio-cultural initiatives, to 
determine potential synergies and best practices in order to develop 
and evolve an enduring joint capability. The results of this assessment 
are due in the spring of 2011.

                           OPERATIONAL ENERGY

    Question. Prior to and since the creation of the Assistant 
Secretary of Defense for Operational Energy Plans and Program, a number 
of the Services have made progress addressing concerns associated with 
operational energy. The Army has announced its operational energy 
aspirations for the future but, unlike the other Services, the Army's 
five strategic energy security goals appear vague and lack quantitative 
metrics against which to measure progress.
    If confirmed, how would you propose that the Army address its 
operational energy challenges, requirements, and opportunities in the 
immediate short-term?
    Answer. The most important issue with operational energy is the 
amount of fuel used to meet our operational needs. Most of our fuel is 
used in generation of electricity. The Army has implemented, and 
accelerated deployment, of generators that use less fuel as well as 
microgrid systems that tie generators together to operate more 
efficiently. We are developing more efficient motors for helicopters 
and vehicles to reduce our operational energy footprint and, 
ultimately, wars are won or lost by dismounted soldiers, so the Army is 
addressing excessive soldier loads, driven in large part by energy and 
power constraints. As the Commanding General of the Army Training and 
Doctrine Command, I'm a charter member of the Army's Senior Energy and 
Sustainability Council, which is responsible for addressing energy 
challenges across the Army. If confirmed I will continue efforts 
currently underway to increase our energy efficient capabilities in 
theater and emphasize energy awareness through the military chain of 
command, and across the Army, to foster a more energy-aware culture.
    Question. What is your understanding of the Army's progress with 
respect to testing and deploying operational energy technologies?
    Answer. The Army is taking advantage of every avenue, to include 
industry, to help us develop technologies that can reduce our 
operational energy footprint. Renewable energy systems and insulated 
tentage are some of the systems being piloted and tested. We are also 
evaluating technologies that will help lighten soldier loads and reduce 
the amount of batteries and fuel we must procure and deliver to 
theater. We will continue to pursue more efficient devices and employ 
energy management capabilities that are essential to retain energy as 
an operational advantage.
    Question. What is your understanding of how the Army is taking 
advantage of its labs and research, engineering and development centers 
to further its operational energy and security goals?
    Answer. The Army has integrated the national laboratories with 
Department of Energy and Army laboratories to develop solutions to a 
range of operational energy, power and security needs. Some of the 
initiatives include research to reduce the size and weight of 
components, broadening alternative energy sources, leveraging various 
emergent energy efficient technologies. These new technologies will 
increase energy efficiency and improve power supplies for contingency 
bases, forward operating bases and equipment carried by individual 
soldiers. If confirmed I will work to ensure that the research 
conducted at Army facilities continues to focus on meeting the 
operational energy needs of the current and future Army.

                      INVESTMENT IN INFRASTRUCTURE

    Question. Witnesses appearing before the committee in recent years 
have testified that the military Services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Army infrastructure investment?
    Answer. Since fiscal year 2007, with BRAC, Transformation, and Grow 
the Army initiatives, the Army has made significant MILCON investments 
in its infrastructure. If confirmed, I will work with the Assistant 
Secretary of the Army, Installation, Energy and Environment, and the 
Commanding General at Installation Management Command to assess our 
infrastructure investments.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. Proper stewardship of our facilities portfolio requires the 
Army to fully sustain the current facilities, dispose of our excess 
facilities, improve the quality of our worst facilities and build-out 
our largest and most critical shortages, all at a level adequate to 
support the mission.
    If confirmed, I will evaluate the proper balance of funding, to 
include evaluating whether the Army should increase operation and 
maintenance funding for restoration and modernization and Demolition.

             ARMY POLICIES REGARDING DRUG AND ALCOHOL ABUSE

    Question. What is your understanding of the Army's policy with 
respect to disciplinary action and administrative separation of 
soldiers who have been determined to have used illegal drugs? Do you 
agree with this policy?
    Answer. Army policy directs commanders to initiate administrative 
separation for all soldiers involved in trafficking, distribution, 
possession, use, or sale of illegal drugs. While the policy requires 
initiation of separation, commanders have the authority to retain or 
separate a soldier.
    I concur with this policy.
    Question. What is your understanding of the Army's policy with 
respect to rehabilitation and retention on active duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. Army policy requires that the separation authority consider 
a soldier drug offender's potential for rehabilitation and further 
military service. For this reason, soldiers who commit drug and alcohol 
offenses are required to be evaluated by a certified substance abuse 
counselor through the Army Substance Abuse Program (ASAP). Commanders 
consider the recommendation of ASAP counselors when determining a 
soldier's potential for rehabilitation and retention.
    I concur with this policy.
    Question. Do you believe that the Army has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways?
    Answer. My personal experience at various command levels since 2001 
has been that the Army devotes sufficient resources to implement these 
objectives. If confirmed, I will assess and closely monitor the level 
of resourcing for this important area.
    Question. What measures are being taken to improve the Army's 
performance in responding to problems of drug and alcohol abuse?
    Answer. Army policy requires a comprehensive approach by 
commanders, law enforcement and the medical community for drug and 
alcohol abuse. The Army is working diligently to improve its 
surveillance, detection, and intervention systems for drug and alcohol 
abuse.
    The Army investigates all reported drug and alcohol incidents to 
assist commanders in properly adjudicating the offense. The Army is 
also enhancing detection capabilities through the Drug Suppression 
Teams.
    The Army is also working to improve intervention systems. In 
addition to increasing the number of ASAP counselors to accommodate the 
increasing demand, the Army continues to expand the Comprehensive 
Soldier Fitness program to build resiliency in the force. The Army is 
also conducting the Confidential Alcohol Treatment and Education Pilot 
program at six installations to promote help seeking behavior by 
allowing soldiers to confidentially seek help for alcohol problems.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The Army continues to face significant shortages in 
critically needed medical personnel in both Active and Reserve 
components.
    What is your understanding of the most significant personnel 
challenges in recruiting and retaining health professionals in the 
Army?
    Answer. There continues to be a national shortage of medical 
professionals that challenges the Army's efforts to recruit and retain 
healthcare professionals. The Army competes with governmental and non-
governmental agencies, as well as private healthcare organizations to 
attract and retain the most skilled and talented healthcare providers, 
in a uniformed or civilian capacity. The Army continues to evaluate 
initiatives to provide more flexibility to allow the Army to adequately 
compete in these areas.
    Question. If confirmed, would you undertake a comprehensive review 
of the medical support requirements for the Army, incorporating all new 
requirements for 2011 and beyond?
    Answer. I believe it is important to review medical support 
requirements on a regular, recurring basis. With that in mind, if 
confirmed I will assess whether the Army should undertake a 
comprehensive review of the medical support requirements for the Army.
    Question. If confirmed, what policies or legislative initiatives, 
if any, are necessary in order to ensure that the Army can continue to 
fulfill ongoing medical support requirements?
    Answer. Given the policy initiatives currently underway and the 
changes implemented by the National Defense Authorization Act for 
Fiscal Year 2011 at this time, I do not believe additional legislative 
authorities are needed to ensure that the Army fulfills medical support 
requirements. If confirmed, I will closely monitor this area and will 
work closely with the administration and Congress to seek any 
additional authorities identified as necessarily to maintain this goal.

                            WOMEN IN COMBAT

    Question. What is your view of the appropriate combat role for 
female soldiers on the modern battlefield?
    Answer. Female soldiers have been and continue to be an integral 
part of our Army team, contributing to its success and overall 
readiness as they perform exceptionally well in specialties and 
positions open to them. Women are employed in units and positions and 
trained in theater--specific roles that often necessitate combat action 
such as defending themselves or their units from attack or accompanying 
patrols.
    Question. In your view, should the current policy prohibiting the 
assignment of women to ground combat units be revised or clarified in 
any way to reflect changing roles for female soldiers and the changing 
nature of warfare?
    Answer. Existing Army policy is more restrictive than the 1994 
Department of Defense policy. If confirmed, I will assess Army policies 
against the evolving nature and realities of modern combat.
    Question. Do you believe that it is appropriate for female soldiers 
to serve in positions in which they may be exposed to combat?
    Answer. Yes. Women are serving in positions that expose them to 
combat today and continue to make tremendous contributions as well as 
demonstrate their selfless - service and sacrifices in roles and 
responsibilities critical to the safety and security of our Nation and 
to the readiness of the Army.

                      FOREIGN LANGUAGE PROFICIENCY

    Question. A Foreign Language Transformation Roadmap announced by 
the Department of Defense in March 2005, directed a series of actions 
aimed at transforming the Department's foreign language capabilities to 
include revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your assessment of the progress the Army has made in 
increasing its foreign language capabilities in operations in Iraq and 
Afghanistan?
    Answer. As Commanding General for the Training and Doctrine 
Command, I witnessed a tremendous increase in foreign language 
capabilities in support of OIF/OEF. The Army revolutionized its 
recruiting processes to enlist native and heritage speakers into vital 
interpreter/translator positions. Pre-deployment training for the 
General Purpose Force Soldiers and Civilians has transformed to include 
Afghanistan/Pakistan Hands Program, Language Enabled Soldiers training, 
the Rapport Program, and other Soldiers and Civilians with Culturally 
Based Language Training. The Reserve Officer Training Corps has 
introduced a very successful Culture and Language Program, which 
provides incentives and immersion opportunities for cadets who take 
foreign language and related cultural studies. Overall, these 
initiatives have provided enhanced capabilities for counterinsurgency 
operations and building partner capacity overseas.
    Question. In your view, what should be the priorities of the 
Department of Defense, and the Army in particular, in responding to the 
need for improved foreign language proficiency and improving 
coordination of foreign language programs and activities among Federal 
agencies?
    Answer. In my opinion, one of the highest priorities for the 
Department of Defense should be the continued support of the Defense 
Language Institute Foreign Language Center, which provides Culturally 
Based Language Training to all Services and Department of Defense 
Components. With the increasing demand for Pashto and Dari instructors, 
and foreign language professionals in general, the Department of 
Defense must coordinate with Federal agencies to ensure best practices 
are shared to recruit and retain personnel with these critical skills.

           PROTECTION OF U.S. FORCES AGAINST INTERNAL THREATS

    Question. One year ago, 13 people were slain and scores wounded 
during a shooting rampage allegedly carried out by a U.S. Army Medical 
Corps officer. A Department of Defense review of the attack concluded 
that the Department was poorly prepared to defend against internal 
threats, including radicalization of military personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. The lessons learned are invaluable to the Army as we strive 
to improve the Army Protection Program for individuals and units 
against emerging threats. Through a holistic Protection approach, the 
Army is aggressively fielding material and nonmaterial solutions to 
address internal and external threats.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. If confirmed, I will ensure that we continue to integrate 
and synchronize the many Army Protection Programs that protect our 
soldiers, family members, and Department of the Army civilians by 
ensuring that commanders and leaders have the information and tools 
needed to address the ever changing threat environment.

                          RELIGIOUS GUIDELINES

    Question. The DOD Independent Review Related to Fort Hood observed 
that ``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization'' and recommended that the policy be updated.
    What is your view of the need to clarify the policy regarding 
religious accommodation in the Army?
    Answer. The policies for religious accommodation in the Army are 
published in AR 600-20, Army Command Policy. The policy must be clear 
and provide appropriate guidance to both soldiers and commanders 
regarding how the Army accommodates for religious beliefs and 
practices. To this end, if confirmed, I will assess the current policy 
and determine if further changes are necessary.
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the Army?
    Answer. Your question raises a valid concern. However, the Army is 
a diverse force. As soldiers in the profession of arms, we understand 
the key role that good order, discipline, morale, and safety have in 
ensuring units are at all times ready to defend this nation. The Army 
has long been a place where people from all walks of life can serve 
proudly and where the many become one--a U.S. Army soldier.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
Army?
    Answer. The Army has a longstanding commitment to treat all 
soldiers with dignity and respect. Treating soldiers with dignity and 
respect requires continuous leader emphasis and vigilance.
    Question. Do Army policies regarding religious practices in the 
military accommodate, where appropriate, religious practices that 
require adherents to wear particular forms of dress or other articles 
with religious significance?
    Answer. Regulations regarding wear of religious clothing or items 
are found in two regulations (AR 600-20, Army Command Policy and AR 
670-1, Wear and Appearance of Army Uniforms and Insignia). The policy 
provides the authority to wear religious jewelry, apparel or articles 
if they are neat, conservative, and discreet and compliant with these 
regulations.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. In my opinion, current Army policies provide commanders 
with adequate flexibility to balance accommodation for religious 
beliefs and maintain good order and discipline.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. The Army does not have a policy regarding public prayer by 
military chaplains. As a matter of practice, however, chaplains are 
encouraged to be considerate of the audience.

                             FAMILY SUPPORT

    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality of life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. In my view the most pressing family readiness issues 
include sustaining the Army Family Covenant and improving communication 
and awareness of the extensive range of available support programs and 
services the Army has to improve soldier and family quality of life.
    In 2007, the Army Family Covenant was unveiled to improve quality 
of life by providing programs and services that enhance soldier and 
family strength, readiness, and resilience. Since then, the Army has 
made great progress and continues to fulfill its commitment to provide 
soldiers and families a quality of life commensurate with the quality 
of their service.
    The Army Family Action Plan, Survey of Army Families, and other 
studies revealed that soldiers and families may not be aware of the 
myriad of available support services. To address this concern, the Army 
is transforming Army Community Service (ACS) to help connect soldiers 
and families to the right service at the right time. This 
transformation will create a more streamlined and modular support 
structure that better supports our modular Army at every installation. 
The Army has begun piloting ACS transformation and anticipates 
completion by October 2011.
    The Army has made great progress in building a wide range of 
support capabilities over the last few years, but the strain on the 
force continues. If confirmed, I will continue to strengthen our 
support services and ensure our programs efficiently meet the needs of 
the soldiers and families who use them.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, and lengthy deployments?
    Answer. If confirmed, I will endeavor to ensure that Army Family 
programs reach out to all soldiers and their families, regardless of 
geographic location or deployment status. I will also work to ensure 
that family program platforms and delivery systems keep pace with a 
mobile Army and utilize technological advances and social networking so 
services are available to the soldiers and families who need them.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active duty families who do not reside near a 
military installation?
    Answer. I am committed to ensuring soldiers and families remain 
connected to Army Family services and programs, whether by internet, 
telephone, or in person regardless of geographic location or Component. 
Army OneSource (www.MyArmyOneSource.com) is the website of choice for 
information on Army Family programs and services. Army OneSource 
highlights Active and Reserve Component Family Programs, is publicly 
accessible, and thus available to all components and immediate and 
extended family members.
    The State Joint Force Headquarters is the platform for support of 
geographically dispersed servicemembers and families. This platform 
projects the Joint Family Support Assistance Program resources, ARNG 
Family Assistance Centers (FACs), ARNG Family Readiness Support 
Assistants, and the ARNG Child and Youth program in support of Reserve 
component families and Active component families that do not reside 
near the installation. Additionally, Army sponsored programs including 
Operation Military Kids and Community Based Child Care and Respite Care 
programs build community capacity for the geographically dispersed Army 
population. These programs offer similar services and assistance to 
geo-dispersed Reserve component families as would be available on 
installations and are connected to local resources that soldiers and 
families are eligible to use.

                      MENTAL HEALTH ADVISORY TEAMS

    Question. The Army's Mental Health Advisory Team (MHAT) studies in 
Iraq and Afghanistan have been valuable in identifying the extent of 
mental health conditions and resource and training challenges being 
experienced in combat theaters. The most recent report, MHAT VI, stated 
that multiple deployments were related to higher rates of acute stress 
and psychological problems, that servicemembers on their third and 
fourth deployment ``reported using medications for psychological or 
combat stress problems at a significantly higher rate,'' and that 
``soldiers with short dwell-time report high mental health problems, 
high intent to leave the military and low morale.''
    Based on the findings of MHAT VI that soldiers experience increased 
stress due to multiple deployments and short dwell time, what actions 
would you take, if confirmed, to ensure that appropriate mental health 
resources are available to soldiers in theater, as well as upon their 
return?
    Answer. The MHAT studies play a key role in proactively identifying 
how changes in the operational environment impact the ability to 
provide behavioral health care. Since OEF MHAT VI, the number of 
behavioral health personnel in theater was significantly increased to 
improve the ratio of behavioral health specialists to soldiers. 
Specifically, the MHAT team recommended one behavioral health personnel 
should be deployed for every 700 soldiers, and this ratio was met. 
Second, the MHAT team recommended a redistribution of behavioral health 
personnel to ensure that each BCT had one additional dedicated provider 
to augment their organic provider. This ``dual provider'' model was 
designed to ensure that a provider would be available to travel to 
remote outposts to see soldiers who had limited access to the larger 
Forward Operating Bases. If confirmed, I will ensure that the Army 
continues to develop and synchronize the expeditionary components of 
health promotion, risk reduction, and suicide prevention programs and 
services.
    Question. What do you think have been the most valuable findings of 
the Army's Mental Health Advisory Teams, and what are the lessons which 
can be applied to future deployments?
    Answer. One of the most valuable findings from the MHATs has been 
to document that soldiers on multiple deployments report higher mental 
health problems. This finding was first observed in 2005 (MHAT III), 
and has been replicated in every subsequent MHAT. Another valuable 
finding noted in the question was the observation that mental health 
problems are related to dwell-times. Specifically, short dwell-times 
are associated with a heightened increase in reports of mental health 
problems. Other key findings include the observation that deployment 
length is strongly associated with reports of mental health problems 
and deployments have put a strain on marital relationships. Overall, 
the willingness to take a systematic look at the behavioral health care 
system and the behavioral health status of soldiers through programs 
such as the MHATs has ensured that the Army is being responsive to the 
needs of deployed soldiers to include refining behavioral healthcare 
delivery models.

                                SUICIDES

    Question. The committee continues to be concerned about the 
continuing increase in soldier suicides, especially the sharp increase 
in Reserve component suicides. In June, 2010, the Army released a 
report on Health Promotion, Risk Reduction, and Suicide Prevention that 
analyzed the causes of suicides in the Army and reported disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. 
Chapter III of this report discussed the lost art of leadership in 
garrison.
    In your view, what is the cause of this surge in the number of 
suicides of Reserve Component members?
    Answer. The number of ARNG suicides for calendar year 2009 and 
calendar year 2010 were 62 and 112, respectively. The increase in 
suicides is due in part to improved reporting over the past 18 months 
for the Reserve components. This increase is not directly associated 
with deployments or unemployment as over 50 percent of ARNG suicides 
were soldiers who never deployed.
    Question. The Army is focusing attention on the differences between 
our Active-Duty (AD) and non-Active-Duty suicides because there are 
external variables at play. The Army believes that factors such as the 
economy (particularly a difficult labor market) are creating stress in 
our non-AD population. Data indicates that unemployment among our young 
non-AD soldiers is above 30 percent and we are experiencing an increase 
in requests for employment assistance through ESGR (Employer Support of 
the Guard and Reserve). Additionally, Reserve component soldiers do not 
have the same access to medical care as their AD counter parts.
    Answer. We continue to pull all accessible national data to better 
understand current trends. The CDC has a 3-year lag in reporting. So, 
while we have anecdotal indication of increased suicide in some 
civilian sectors, we don't have a clear picture of the national suicide 
rates for calendar year 2008-calendar year 2010. This is particularly 
important because these unreported years encapsulate the largest 
recession since WWII (Dec. 2007-June 2009). The Army is improving 
awareness of and access to training and resources; working with 
employers and private sector to mitigate economic stress; and improving 
the quality and access to health care for all Reserve component 
soldiers.
    Question. What is your assessment of the Army's response to the 
continuing increase in suicide rates?
    Answer. Leaders across the Army have taken aggressive steps to 
improve the health of the force, decrease high risk behavior and stem 
the increasing rate of suicides in our formations. This is a very tough 
issue and it is going to take consistent vigilance to fully understand 
the causes for this increase, identify the indicators and implement 
appropriate intervention measures. After nearly a decade of war, we are 
working to keep pace with the expanding needs of our strained Army, and 
continuously identify and address the gaps that exist in our policies, 
programs and services. The Army Health Promotion, Risk Reduction and 
Suicide Prevention Report 2010, along with the DOD Task Force on the 
Prevention of Suicide by Members of the Armed Forces and other 
strategic reports, serve as the foundation for our systemic effort to 
improve.
    Question. What is the Army doing to address the issues raised in 
the Health Promotion, Risk Reduction, and Suicide Prevention?
    Answer. The Health Promotion, Risk Reduction and Suicide Prevention 
(HP/RR/SP) report was a focused 15 months effort to better understand 
the increasing rate of suicides in the force. This candid report 
informed and educated Army leaders on the importance of identifying and 
reducing high risk behavior related to suicide and accidental death, 
and reducing the stigma associated with behavioral health and 
treatment. Important issues raised in the HP/RR/SP Report include: gaps 
in the current HP/RR/SP policies, processes and programs necessary to 
mitigate high risk behavior; an erosion of adherence to existing Army 
policies and standards; an increase in indicators of high risk behavior 
including illicit drug use, other crimes and suicide attempts and an 
increased operational tempo.
    To address gaps in the current HP/RR/SP policies, processes and 
programs necessary to mitigate high risk behavior, the Army has taken 
actions such as disseminating policy addressing the issues of 
polypharmacy, requiring a comprehensive medical review of any soldier 
who is receiving four or more medications when one or more of those is 
a psychotropic or antidepressant.
    To address the erosion of adherence to existing Army policies and 
standards, the Army has issued commanders a compendium of Army policies 
emphasizing the Army's current policies and systems for surveillance, 
detection and intervention of high risk behavior. This has already 
increased our compliance and utilization rates across numerous proven 
policies and processes.
    To address the increase in indicators of high risk behavior 
including illicit drug use, other crimes and suicide attempts, the Army 
has taken actions such as instituting a new online system giving 
Medical Review Officers improved access to drug and alcohol information 
systems resulting in enhanced identification of prescription/illicit 
drug use.
    To address stressors associated with an increased operational 
tempo, the Army has increased the number of Military Family Life 
Consultants. These consultants work with soldiers and their families to 
provide them support during transitions and separations. They are 
available to support soldiers both prior to deployment/mobilization and 
during reintegration upon return from deployment.
    Question. What is your assessment of the status of the Army's 
Resiliency program in ensuring the readiness and well being of the 
Total Force?
    Answer. The Army's Comprehensive Soldier Fitness program is a 
ground breaking way of addressing stress on the force. We have migrated 
from treating stress and stress-related outcomes to developing 
resiliency in our young soldiers to get ahead of the effects of this 
hazardous occupation. We are shifting our focus from intervention to 
prevention, from illness to wellness.
    It is my view the Comprehensive Soldier Fitness is a critical 
component to the Army's holistic approach to the wellness of the Force. 
As part of our program we have fielded Master Resiliency Trainers into 
our training base to start early in developing resiliency among our 
recruits and trainees. We are gradually expanding this fielding to 
incorporate all units, particularly timed to our deploying forces 
during pre and post-deployment phases.
    Question. National Institute of Mental Health (NIMH) is currently 
performing a 5-year study on suicides in the Army.
    Has the Army received any interim reports from this study that may 
influence Army suicide prevention programs?
    Answer. The Army has received several interim reports from the NIMH 
and is evaluating the findings. The Army continues to work with our 
national partners in academia to develop groundbreaking programs and 
initiatives, in particular the Army Study to Assess Risk and Resilience 
in Servicemembers being conducted by the NIMH.
    Question. If confirmed, what actions, if any, would you propose 
that the Army take in the meantime to enhance its suicide prevention 
program?
    Answer. If confirmed, I will sustain the extensive leader focus on 
this issue and its challenges. This is an enduring problem that 
requires enduring solutions.

                      SUPPORT FOR WOUNDED SOLDIERS

    Question. Wounded soldiers from Operations Enduring Freedom, Iraqi 
Freedom, and New Dawn deserve the highest priority from the Army for 
support services, healing and recuperation, rehabilitation, evaluation 
for return to duty, successful transition from active duty if required, 
and continuing support beyond retirement or discharge. Yet, as the 
revelations at Fort Stewart in 2003 and Walter Reed in 2007 revealed, 
the Army was not prepared to meet the needs of returning wounded 
soldiers.
    In your view, what were the most critical shortcomings in warrior 
care since 2001?
    Answer. The quality of military medical care is in my opinion 
cutting edge and unequaled. In my opinion, at the outset of Operations 
Enduring Freedom and Iraqi Freedom, the Army's infrastructure was 
lacking in the area of housing and managing outpatient care for 
returning wounded, ill, and injured soldiers received. Additionally, we 
identified shortcomings in Traumatic Brain Injury, Post Traumatic 
Stress, Behavioral Health, and Pain Management. Since 2001, we have 
invested significant research, resources and developed formal programs 
to improve warrior care.
    Question. What is your assessment of the Army's response?
    Answer. With the support of Congress, the Army has addressed the 
issues of housing wounded and injured soldiers, developed well 
resourced Wounded Warrior Transition Units (WTU) and effectively 
centralized our Army programs under the Warrior Transition Command.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from active service?
    Answer. In 2004, the Army created the Wounded Warrior Care program 
to provide follow on assistance to wounded personnel who separated from 
service. Under the program, the Army maintains contact with soldiers to 
provide a continuum of care and support.
    Question. How effective, in your view, are those programs?
    Answer. With more than 170 Advocates stationed around the country 
in Department of Veterans Affairs medical facilities, at Warrior 
Transition Units, and everywhere severely injured Army Veterans reside, 
the Army Wounded Warrior (AW2) Program is where it needs to be to 
support those who have bravely served this great nation. As part of the 
Warrior Transition Command, AW2 is now positioned to ease the 
transition from soldier to veteran as part of a continuum of care and 
support that stretches from the battlefield to where they reside today.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. If confirmed, I will continuously assess the efficiency and 
appropriateness of the Army's support for wounded personnel. I would 
implement strategies and seek resources as needed to ensure that the 
Army meets the needs of wounded soldiers.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the Army's disability evaluation system.
    What is your understanding and assessment of the Army's disability 
evaluation system?
    Answer. If confirmed, I will closely examine the disability 
evaluation system to reveal any areas that need to be improved or that 
could be streamlined. I would also work with Army, DOD and VA 
stakeholders to decrease the length of time to complete these 
evaluations and facilitate the transition to civilian life for those 
determined to be not fit for duty.
    Question. If confirmed, what actions, if any, would you propose to 
address any need for changes in this system?
    Answer. If confirmed, I would work with experts in this area and 
with the stakeholders in the Army, DOD and VA to identify elements of 
the current system that should be changed and develop a strategy for 
accomplishing those changes.

                ARMY WARRIOR CARE AND TRANSITION PROGRAM

    Question. The Pittburgh Tribune-Review recently published a series 
of articles that alleged that the Army's 38 Warrior Transition Units 
had become ``a dumping ground for criminals, malingerers, and dope 
addicts'' creating an imbalance of soldiers who need complex medical 
case management and soldiers that commanders do not want to take on 
combat deployment.
    Does the Army have adequate guidelines to ensure that only those 
soldiers with qualifying medical needs are assigned to Warrior 
Transition Units?
    Answer. I am concerned that Warrior Transition units maintain the 
focus on complex medical care management and support those soldiers 
with a genuine need. If confirmed, I will continuously assess 
guidelines to ensure that only soldiers with qualifying needs are 
assigned to the WTUs.
    Question. In your view, are the Warrior Training Units serving the 
purpose for which they were created?
    Answer. Over the past 4 years, the Warrior Care and Transition 
Program has significantly improved the quality of care and support 
soldiers and families have received.
    Question. If confirmed, do you plan to make any changes to the 
criteria for assignment to a Warrior Training Unit?
    Answer. While I do not have plans to change the criteria for 
assignment to Warrior Training Units at this time, this is an issue I 
will thoroughly assess if confirmed. Also, I will continually assess 
the effectiveness of the Warrior Care and Transition Program to ensure 
it provides the level of care and support our wounded warriors deserve.
    Question. Staffing of Warrior Transition Units has been a major 
issue, especially at installations experiencing surges of redeploying 
troops.
    In your view, are the Warrior Transition Units staffed with 
sufficient numbers of qualified personnel?
    Answer. I am not fully aware of the existing staffing levels in the 
Warrior Transition units. I will, if confirmed, learn more about this 
area and to ensure appropriate resourcing of Warrior Transition Units 
to support the soldiers under their care.
    implementation of the repeal of ``don't ask don't tell'' policy
    Question. What is your assessment of the Army's readiness and 
capability to implement the repeal of the ``Don't Ask Don't Tell'' 
(DADT) policy?
    Answer. The Army is on track with its implementation plan in 
accordance with DOD guidance and timelines, and I believe the Army is 
fully capable of executing the implementation. Our plan includes 
periodic assessments to review and consider feedback from the field 
throughout the implementation.
    Question. What in your view are the major challenges, if any, that 
could confront the Army in implementing the repeal of DADT? If 
confirmed, what actions, if any, would you propose taking to deal with 
these challenges?
    Answer. The most important challenge is that we educate our 
soldiers who are in combat situations with a minimum of disruption and 
risk. We are making every effort to train units prior to deploying. We 
will also provide the training to currently deployed units and we will 
follow up with these deployed units to ensure that all soldiers receive 
the required training upon their return from deployment.
    Question. What measures is the Army taking to focus training on 
combat units and other deployed units and ensure that repeal of the 
current policy does not adversely affect combat operations?
    Answer. The Army is using a Chain Teach methodology, where each 
commander is responsible for educating his/her subordinates and they in 
turn train their Solders. Commanders and leaders will carefully manage 
deployed units' training to minimize impact on the mission. The Army is 
making every effort to train units prior to deployment.
    Question. If confirmed, what conditions or circumstances would you 
expect to be achieved, if any, before recommending that the Chairman of 
the Joint Chiefs certify that DADT can be repealed without adversely 
affecting the Army?
    Answer. If confirmed, I would base my recommendation on the input I 
receive from commanders and leaders consistent with the requirements 
established by Congress and Department of Defense leadership. I would 
also seek to ensure that the Army completes training according to Army 
guidance.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. Numerous cases of sexual misconduct involving soldiers in 
Iraq, Kuwait, and Afghanistan have been reported over the last several 
years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
Army failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their charges 
and, ultimately, appropriate disciplinary action.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of sexual assaults 
the medical, psychological, and legal help that they need?
    Answer. I am very concerned about reports of sexual assault 
anywhere in our Army but especially in deployed locations. We cannot 
tolerate this behavior wherever it occurs. While the deployed theatres 
pose special challenges, the Army is committed to providing victims in 
deployed units with appropriate medical care, resources and support. 
The Army has taken a number of significant steps to improve the 
assistance to victims of sexual assault, including enhanced recognition 
of the special circumstances posed by deployed soldiers. The Army's 
Sexual Harassment Assault Response and Prevention (SHARP) Program 
includes medical, advocacy, chaplain, investigative and legal services. 
This program requires every brigade sized unit to appoint and train a 
deployable sexual assault response coordinator and every battalion to 
appoint and train unit victim advocates.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults at deployed locations as well as 
home stations?
    Answer. In 2008, the Army implemented its I. A.M. (Intervene, Act, 
Motivate) Strong Sexual Assault Prevention Campaign. The campaign 
includes strategic, operational and tactical level execution of the I. 
A.M. Strong Campaign, with heavy emphasis on soldiers' commitment to 
intervene and protect their fellow soldiers from the risk of sexual 
assault and from the risk of sexual harassment. The campaign places 
additional emphasis on establishing a command climate that deters 
sexual harassment and assault.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. While increasing emphasis to prevent sexual assaults before 
they occur, the Army continues to emphasize victim services and 
response capabilities, to include enhancements to investigation and 
prosecution resources.
    The SHARP Program is a great start to managing strategies, policies 
and resources necessary to adequately prevent and respond to incidents 
of sexual assault. This is a challenging problem that will require 
leadership and constant vigilance at all levels.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Prior to implementation of the I. A.M. Strong Prevention Campaign, 
the focus of the Army program was primarily on victim response. Part of 
that response focus was the implementation of confidential reporting, 
or restricted reporting, which is an effective way to allow a victim to 
come forward and have their personal needs met without fear that may be 
associated with a criminal investigation. If confirmed, I will continue 
to look closely at the Army's sexual assault program.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Getting victims to trust the system and come forward can be 
challenging; however, I am not aware of any specific problems with the 
current reporting procedure. Confidential reporting, or restricted 
reporting, allows a victim to come forward and have their personal 
needs met without fear that may be associated with a criminal 
investigation.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Army staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Perhaps the most important role of any Senior Army Leader 
is to ensure there is an adequate assessment of an organizational 
climate, where such behavior is not tolerated and where victims feel 
free to report incidents without fear of reprisal.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I will have an active role in the oversight 
and implementation of the Army's Sexual Harassment/Assault Response and 
Prevention (SHARP) Program. I will work with the Secretary and the Army 
leadership to ensure the Army's SHARP program continues to receive the 
appropriate level of supervision, guidance, and support needed to 
drastically reduce incidents of this unacceptable crime.

                    MORALE, WELFARE, AND RECREATION

    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel, and their eligible family 
members.
    What challenges do you foresee in sustaining and enhancing Army MWR 
programs and, if confirmed, what improvements would you seek to 
achieve?
    Answer. The Army has taken steps to ensure we care for and retain 
Families through a broad range of meaningful initiatives, to include 
many family and MWR programs and services. In October 2007, the Army 
leadership unveiled the Army Family Covenant, which institutionalized 
the Army's promise to provide soldiers and their families with a 
quality of life that is commensurate with their service to the Nation. 
The Soldier Family Action Plan provided the original roadmap to 
implement the Army Family Covenant, and includes such important 
programs as Soldier Family Assistance Centers, Survivor Outreach 
Services, improved services to the geographically dispersed, 
Exceptional Family Member respite care, Army OneSource, Child, Youth 
and School Services, Child Development Center and Youth Center 
construction, and more.
    A challenge will be to sustain a consistent level of funding for 
these programs. If confirmed, I will consult with commanders, soldiers 
and families to ensure that these programs are adequate and meet their 
needs.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. The U.S. military has always adhered to one simple, 
enduring principle regarding detainees: they are to be treated 
humanely, no matter what the circumstances of their capture, and no 
matter how the conflict is characterized.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. Both of these documents provide effective, practical 
guidance and direction to the field on critically important issues 
relative to detainee treatment, detainee operations training, and the 
interrogation of detainees.
    Question. Do you believe it is consistent with effective military 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes. The requirements of Common Article 3 are nothing new 
to the U.S. military. The protections outlined in this article have 
been a part of U.S. policy on the law of war and the treatment of 
detainees for some time.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. First and foremost, I would set the right tone for the 
force by taking every opportunity to talk about the importance of 
ethical conduct on the battlefield. I would stress that the Army earns 
the trust and respect of the American people by our actions, especially 
our actions in combat. I would tell them that by adhering to the laws 
of war, treating detainees humanely, and showing compassion and 
restraint, we prove to America and to the world that we are what we say 
we are: a disciplined, professional fighting force.
    Second, I would sustain and improve our existing systems for 
helping our soldiers understand and adhere to the proper standards for 
detainee treatment, detention operations, interrogations, et cetera.
    Finally, the Army is committed to adherence to the Law of War and 
the humane treatment of detainees. When allegations of wrongdoing by 
soldiers surface, the Army must continue to fully investigate. If 
misconduct is substantiated, there are procedures in place to hold 
soldiers accountable.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. The two primary lessons learned from detention operations 
in Iraq were the need for centralized command and control and the 
requirement to nest with the host nation's correctional system and rule 
of law.
    Centralized command and control of detainee operations is necessary 
to ensure uniform implementation of policy.
    The other lesson we learned from Iraq was that detainee operations 
cannot stand alone; it must nest with the host nation's correctional 
system and rule of law. Integration of detainee operations with host 
nation police, judiciary and penal systems is essential to a smooth 
transition to host nation control.
    Question. What is your understanding of how these lessons are being 
applied in Afghanistan?
    Answer. Combined Joint Interagency Task Force (CJIATF) 435 in 
Afghanistan incorporated the above lessons learned. The CJIATF 
incorporates detainee operations, corrections, and rule-of-law concepts 
that provide assistance to the GIROA to assume full detention and 
correction responsibilities. The CJIATF works closely with the 
Department of State and the host nation.
    Question. What should be done to incorporate those lessons learned 
into Department of Defense doctrine, procedures and training for 
personnel involved in detention and interrogation operations?
    Answer. As the DOD Executive Agent for detainee operations, the 
Army is working closely with DOD and the Services to incorporate these 
lessons learned into DOD-wide doctrine, procedures and training. The 
Army continues to compile and assess lessons learned to inform and 
update policy, doctrine, and tactics, techniques, and procedures.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                          FUTURE ARMY AIRLIFT

    1. Senator Levin. General Dempsey, as the head of the Army's 
Training and Doctrine Command (TRADOC), you were responsible for 
studying the challenges to rapid deployment of ground forces to distant 
theaters from the Continental United States, and determining methods 
for increasing our responsiveness. Afghanistan is a case in point--a 
distant, landlocked theater that, like most of the Third World, has few 
airfields large enough to handle our long-range transport aircraft. 
Moreover, the few large airfields that do exist tend to have very 
limited space on the ground to park aircraft for unloading or staging 
personnel and equipment. This means that even when we can get to a 
region by air, the throughput is very limited. Moving even a single 
brigade in this fashion can take weeks or even months.
    In the ongoing Analysis of Alternatives (AOA) process for a 
replacement of the C-130, the Army's concern is that the large fleet of 
C-17s, C-5s, and C-130s has limited utility in the Third World, where 
airfields are scarce and restricted. In the AOA, the Army favors a 
replacement for the C-130 that has a vertical takeoff and landing 
(VTOL) capability much like that of the V-22. U.S. Transportation 
Command is also very interested in high-capacity alternatives to 
complement traditional fixed-wing lift assets. What are your views on 
the need for a C-130-sized VTOL capability to support the Army?
    General Dempsey. The Army has been actively collaborating with the 
U.S. Air Force for over 3 years to validate the Joint Future Theater 
Lift (JFTL) requirements and move to a Milestone A decision for a 
theater airlift capability with more payload and greatly improved 
access than a C-130. Our lessons learned from past and recent 
deployment experiences and studies support the need for a heavy-lift 
VTOL aircraft. This airframe will require the ability to operate in 
austere environments on unimproved landing areas within close proximity 
to objective areas and supported units. It will also require the 
ability to bypass known, prepared airfields, which an adversary can 
easily interdict or deny.

    2. Senator Levin. General Dempsey, do you think this would be an 
important capability for the Army and worth the significant investment 
it would require from the Air Force to develop and produce?
    General Dempsey. The Army has in-depth studies substantiating the 
capability. The promise of the technology represented by the JFTL could 
address the need for an intra-theater VTOL airlifter for the entire 
Joint Force. The Army will continue to collaborate directly with the 
U.S. Air Force to complete the ongoing JFTL Joint Technology Study in 
order to continue to march toward a Milestone Decision Document and 
`Milestone A' decision. The development of the JFTL will be a challenge 
because of the technical and engineering requirements, the reality of 
rapid deploying expeditionary formations, the costs associated with 
developing and fielding a truly transformational lift platform coupled 
with today's fiscal realities--not to mention the challenge in 
balancing the need for ``lift'' with ``strike'' capability to our 
Sister Services.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                             ENERGY SOURCES

    3. Senator Begich. General Dempsey, energy is vital to the 
operational capability of the military. However, our current energy 
dependence puts lives at risk and undermines our operational 
capability. I know the Department of Defense (DOD) and the Services 
understand how vulnerable our reliance on oil, especially oil from 
foreign countries, has made us as a nation and are taking many steps to 
alleviate dependency. Nevertheless, the bottom line today is the 
military needs access to fossil fuels for energy needs. I prefer those 
sources to be domestic instead of overseas to ensure access and 
strengthen our national security. Please describe your view of how 
reliance on oil for fuel impacts Army operations and personnel.
    General Dempsey. The Army's reliance on oil, from domestic and 
foreign sources, for essentially all operational energy needs impacts 
our operations and personnel by placing the Army at risk of not meeting 
fuel requirements when supply chain disruptions occur. The logistical 
burden of fuel and water convoy operations needed to supply contingency 
bases has lead to significant loss of personnel and equipment. To the 
extent we can use energy more efficiently or, in some cases, use 
alternative energy sources, we can reduce the number of shipments and 
lessen the risk to our soldiers.

    4. Senator Begich. General Dempsey, what is your understanding of 
steps that have been taken to alleviate consumption of oil for current 
operations and what impact have those efforts had?
    General Dempsey. The Army is pursuing a comprehensive energy 
strategy that will reduce consumption across our installations and 
operational forces. We are developing and deploying advanced 
technologies and solutions to reduce fossil fuel demand and to increase 
energy efficiency across platforms, theater base camps, and 
installations. The Army is also adopting alternative and renewable 
energy systems, where life cycle cost effective, to expand operational 
alternatives and help reduce fossil fuel consumption. We're taking 
action to quantify and analyze the impacts of these initiatives. In the 
last year especially, the Army has taken definitive steps to more 
clearly articulate its energy security requirements and accelerate the 
development, integration, and deployment of capabilities to the field. 
If confirmed, I will continue to focus on this important area.

    5. Senator Begich. General Dempsey, in your view, what remains to 
be done?
    General Dempsey. I recognize that much more needs to be done. While 
the Army is already making positive strides, it must continue to pursue 
and field solutions in the areas of smart micro-grids, renewable energy 
technologies, and energy-efficient structures. As TRADOC Commander, I 
was a member of the Senior Energy and Sustainability Council. So I know 
that the Army's senior leaders are working these issues hard. Part of 
this effort is for Army leaders, at all levels, to understand the 
importance of operational energy considerations in mission success.

    6. Senator Begich. General Dempsey, how does the price of oil 
impact the Army's budget during these times of constrained resources?
    General Dempsey. Oil price increases have a definite impact on the 
Army budget in the year of execution. Since 2007, the Army has spent an 
average of more than $3 billion per year on fuel and energy, with more 
than half supporting liquid fuels for operations and the remainder 
representing power and energy at our installations. Higher oil prices 
mean higher energy costs and a significant reallocation of financial 
resources, which could impact the Army's ability to support important 
mission priorities.

    7. Senator Begich. General Dempsey, if confirmed, what steps will 
you take to alleviate dependency on foreign sources of energy, and 
ultimately decrease reliance on oil for fuel?
    General Dempsey. The Army Energy Security Implementation Strategy 
establishes principles that directly address this objective. If 
confirmed, I will continue to support and advocate for the Army's 
campaign to reduce consumption, expand energy alternatives, and improve 
management capabilities. We must curtail our reliance on oil and other 
imported sources of energy, in order to reduce our vulnerability 
associated with disruptions of supply or price fluctuations.

                           IRREGULAR WARFARE

    8. Senator Begich. General Dempsey, Army units from Alaska have 
made a significant contribution to operations overseas. Last week, I 
visited the 1st Stryker Brigade Combat Team (BCT) at the National 
Training Center (NTC) in California during their predeployment training 
exercise. In May, they will deploy to Afghanistan. Due to the 
operational tempo, their training is focused on capabilities required 
for the mission in Afghanistan. It is my understanding in fiscal year 
2012 the Army will be able to begin full spectrum operations (FSO) 
training as dwell time increases. However, as Secretary Gates 
highlighted in a speech at West Point last week, it is imperative the 
capabilities required for these types of missions are 
institutionalized. Yet the force must also be trained for the many 
different types of threats we will face in the future. If confirmed, 
what action will you take to institutionalize irregular warfare?
    General Dempsey. We recently published Change 1 to our capstone 
operations manual, FM 3-0. This manual explicitly states that the 
Army's operational concept is FSOs. FSOs is a combination of offensive, 
defensive, and stability or civil support operations undertaken 
simultaneously as part of an interdependent joint force to seize, 
retain, and exploit the initiative, accepting prudent risk to create 
opportunities to achieve decisive results. FM 3-0 goes on to state that 
these operations are conducted amid populations, and that shaping the 
conditions with the civilian population is just as important to 
campaign success as are offensive and defensive combat operations.
    We are currently institutionalizing Irregular Warfare by 
highlighting it in our capstone doctrine, by inculcating it throughout 
our professional military education system, and by reshaping our 
training strategies to include stability and civil support operations 
in addition to standard offensive and defensive operations.
    At our Combat Training Centers (CTCs), the scenarios are developed 
to enable commanders to train their units on FSO mission essential 
tasks. These tasks include offensive operations, defensive operations, 
and stability and civil-support operations. During a typical FSO 
rotation at a CTC, the training unit will conduct both Combined Arms 
Maneuver against regular forces, and Wide Area Security against 
irregular forces and criminal elements. The degree of focus on offense, 
defense, and stability operations will vary based on unit training 
objectives and potential missions for the training unit. This wide 
array of tasks in a very complex operational environment will ensure 
our forces possess the agility to succeed in FSOs, including irregular 
warfare.

    9. Senator Begich. General Dempsey, how do you propose to sustain 
the capability currently at the NTC like role players and 
infrastructure that has been built up in recent years for irregular 
warfare?
    General Dempsey. The CTC Program, based on the TRADOC G-2's 
Operating Environment Master Plan and the Army Training Strategy, has 
identified enduring training enablers (including role players and 
infrastructure) that are required for training FSOs against hybrid 
threats. These enduring enablers will be prioritized based on the 
operational force needs, programmed in the Army's Program Objective 
Memorandum, and sustained in a resource-informed manner. For example, 
we currently use around 800 role players at each CTC per rotation 
through Overseas Contingency Operations (OCO) funding to support 
Operation Enduring Freedom/Operation New Dawn counterinsurgency-focused 
mission rehearsal exercises. However, our initial estimate is that we 
will need 466 role players for FSOs training at the Joint Readiness 
Training Center (JRTC) and Joint Multinational Readiness Center (JMRC) 
and 296 role players at the NTC to conduct full-spectrum operations 
training against hybrid threats. We will also continue to maintain the 
Military Operations in Urban Terrain (MOUT) villages at the CTCs, 
though we'll only man them to the minimal degree required.

                        ALASKA LAND MOBILE RADIO

    10. Senator Begich. General Dempsey, the Alaska Land Mobile Radio 
(ALMR) system provides interoperable communications for Federal, State, 
and local government agencies consistent with national interoperability 
objectives set by the Department of Homeland Security. ALMR is 
maintained cooperatively through a cost share with all partners. ALMR 
is used for operational needs of the Army like installation security, 
radio communication for convoys, synchronization of personnel during 
deployments and redeployments, transportation management, training 
support, and communication with other agencies. I understand the Army 
will be divesting 41 roadway sites in Alaska over a 2-year period 
beginning this summer. I appreciate the Army's proposal to transfer the 
sites to the State of Alaska at no cost. If confirmed, will you fully 
examine the impact of the divestiture on all partners to ensure the 
system will remain viable until it is replaced or upgraded?
    General Dempsey. We will absolutely continue to examine the impact 
of our divestiture, as I think we have done to this point, and will do 
our best to ensure that ALMR remains viable within the limitations we 
have. The Army no longer has a sufficient ``business case'' for 
continuing to maintain those sites that do not directly support day-to-
day Army requirements. However, we remain fully committed to being good 
partners in this arrangement. To that end, we have offered to transfer 
the assets at our 41 sites, approximately $18 million in capital 
investment, to the State of Alaska at no cost. This will allow the 
State to continue to benefit from the Army's capital investment into 
ALMR that directly supports public safety and other State agency 
missions. We will also maintain our remaining sites in accordance with 
the ALMR Cooperative Agreement and will continue to share the use of 
Federal frequencies with the State, which is a key enabler of this 
system.

    11.Senator Begich. General Dempsey, if confirmed, will you work 
with the other partners to ensure the divestiture timeline allows for 
all partners to make the necessary preparations to assume 
responsibility for the sites if they choose to do so?
    General Dempsey. We have worked closely with ALMR partners and will 
continue to do so as we go through the divestiture process. While the 
ALMR Cooperative Agreement requires a 12 month notification for 
termination, in this case we provided a 16 month notification through 
Alaskan Command (ALCOM), our DOD Representative to the ALMR Consortium. 
We also developed a 2-year phased transfer plan with only one-third of 
the sites being transferred in the first year in order to provide 
maximum fiscal planning opportunity. Additionally, Brigadier General 
Scott, U.S. Army Pacific G-6, personally traveled to Alaska in March to 
meet with Commissioner Becky Hultberg and her staff to see if there was 
a way to further assist. At that meeting, the Army proposed additional 
accommodations by delaying start date of the planned divestiture (first 
13 sites) until January 2012, with the Army maintaining the sites in a 
reduced maintenance (or break-fix) posture for an additional 6 months 
before transferring equipment. This allows ALMR partners a total of 22 
months of preparation time from our original notification. We are 
absolutely interested in being good partners and will continue to do 
all we can to enable this transition within our limitations.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                          ARMY TRANSFORMATION

    12. Senator Chambliss. General Dempsey, the 2010 Quadrennial 
Defense Review (QDR) reinforced the focus on stability operations as an 
integral and co-equal element of FSOs. As such, the role of Civil 
Affairs (CA) forces as subject-matter experts for key stability tasks 
was elevated in two directives included in the Rebalancing the Force 
section of the QDR as enhancements to the capabilities of the U.S. 
Armed Forces. The first of these--``expand CA capacity''--provides 
resources and potential, creates opportunity, and presents challenges. 
The second one--``increase counterinsurgency, stability operations, and 
counterterrorism competency in general purpose forces''--is an 
important implied task for CA that presents its own opportunities and 
challenges.
    As the Commander, TRADOC, part of your mission was to: . . . 
design, develop, and integrate capabilities, concepts, and doctrine in 
order to build an Army that is a versatile mix of tailorable, 
adaptable, and networked organizations operating on a rotational cycle 
for FSOs. During your tenure there, part of TRADOC's web-based 
initiatives included the development or maintenance of a Capabilities 
Needs Assessment website, which documented CA capability requirements 
but never resolved the gaps in CA capabilities.
    How do you reconcile the status of these efforts to close the CA 
gaps and shortfalls while you were Commanding General, TRADOC, with the 
elevated status of stability operations, and by extension the 
importance of CA, within the 2010 QDR?
    General Dempsey. CA forces are an important part of Stability 
Operations. We identified through our Capability Needs Assessment 
process that the Army lacked sufficient resources, specifically CA 
capabilities, for Building Partner Capacity. Our analysis identified 
capability gaps. Our follow-on processes addressed those gaps, and we 
implemented solutions like resourcing the 162nd Infantry Training 
Brigade to prepare General Purpose Forces (GPF) for conducting 
Stability Operations. We have been expanding CA forces to provide the 
increased level of support required by both ongoing operations and 
anticipated future requirements in both the Reserves and the Active 
Force. In 2007 we had 29 CA Battalions with just 9 percent of the force 
in the Active component. By 2013 we will have 43 CA Battalions with 32 
percent of the force in the Active component. The continued growth and 
transformation of CA forces is a work in progress.

    13. Senator Chambliss. General Dempsey, in these tight financial 
times where we actively seek efficiencies wherever we can find them, is 
creating additional CA force structure (military construction dollars, 
training dollars, etc.) the best use of taxpayer funds?
    General Dempsey. The Army regularly assesses its ability to meet 
the demands of the combatant commanders. We identified the need for 
additional CA capability in ongoing operations and see the need for 
these capabilities continuing beyond those operations. CA specialists 
bring unique capabilities to the force, not only in our current 
operations, but also in our engagements and activities to build partner 
capacity. Our growth and transformation of Civil Affairs forces is a 
work in progress that we will continually assess as part of the Army's 
ongoing force modernization and development processes.

    14. Senator Chambliss. General Dempsey, is creating additional CA 
capacity (soldiers/units) the proper way to solve a capability 
shortfall?
    General Dempsey. CA forces provide a unique capability to the whole 
force, enabling us to better meet the needs of our National Security 
Strategy. When deciding how to solve a capability shortfall, the Army 
conducts a formal Capability Based Assessment (CBA) process resulting 
in a recommendation of how to meet the need. In this instance the 
recommended solutions broadly included creating additional CA units as 
well as resourcing the 162nd Infantry Training Brigade to prepare GPFs 
to conduct Stability Operations. We continuously assess how to maximize 
our capabilities and reduce shortfalls as part of our strategic reviews 
and the Total Army Analysis.

    15. Senator Chambliss. General Dempsey, would embedding CA within 
the Army BCT help resolve some or all of these capabilities gaps while 
simultaneously conserving precious resources during an era of 
increasingly constrained budgets?
    General Dempsey. As we look beyond Afghanistan and Iraq, we see the 
need to maintain flexibility to task organize our CA forces, which we 
anticipate may include the ability to operate outside a BCT, in 
conjunction with other Special Operations Forces (SOF).

                     SPECIAL OPERATIONS ACTIVITIES

    16. Senator Chambliss. General Dempsey, section 167, title 10, 
U.S.C., defines 10 activities as special operations (SO) activities 
insofar as each relates to SO. While there is a catchall proviso listed 
as well, designating ``such other activities as may be specified by the 
President or the Secretary of Defense'' as SO activities, given the 
2006 realignment of all Reserve CA and psychological operations/
military information-support operations (PO/MISO) forces from the U.S. 
Special Operations Command (SOCOM), where they supported both the GPF 
and SOF, to the U.S. Army Reserve Command (USARC), where they now 
primarily support the GPF. Should CA and PO have remained on this list 
of SO activities?
    General Dempsey. Active component CA and Military Information 
Support Operations (MISO) should remain on the list of Special 
Operations Activities. However, Reserve component (RC) CA and MISO 
should be removed for two reasons. First, because RC CA and MISO 
support the GPF, they should be aligned with them to better facilitate 
their operational employment. Second, the complexities of managing a 
force the size and composition of the RC CA and MISO force are best 
handled by the USARC.
    Consistent with section 167, title 10, U.S.C., SOCOM is designated 
the joint CA Proponent. Within SOCOM, the Army SOCOM is the proponent 
for CA. It has long been acknowledged, in both design and practice, 
that CA is not an exclusively special operations discipline. The GPF 
has a longstanding history of employing CA that certainly extends to 
operations conducted abroad today.

    17. Senator Chambliss. General Dempsey, given this change of 
command and control, how do you reconcile the fact that Reserve 
component CA and PO/MISO soldiers continue to perform what is 
technically defined as a SO activity without commensurate authorities, 
training, equipping, or funding every time they deploy in support of 
combat operations in Iraq, Afghanistan, and the Horn of Africa?
    General Dempsey. Per section 167, title 10, U.S.C., ``For purposes 
of this section, special operations activities include each of the 
following insofar as it relates to special operations . . . Civil 
Affairs . . . Psychological Operations . . . ''. Based upon this 
definition, the CA and MISO missions conducted by the Reserve component 
(RC) in Iraq, Afghanistan, and the Horn of Africa are not Special 
Operations Activities because they are conducted in direct support of 
GPFs, not SOFs. The RC CA and MISO soldiers have the appropriate 
authorities (i.e. Commanders Emergency Relief Program), training (AC 
and RC CA and MISO forces are trained using the same Program of 
Instruction and Doctrine, with the exception of language training being 
optional for the RC), and Major Force Program 2 (MFP2) funding to 
support their combat operations and other operational employment.

    18. Senator Chambliss. General Dempsey, what can be done to clarify 
this statutory discrepancy?
    General Dempsey. If deemed necessary, a decision to clarify any 
perceived discrepancy would have to be in the form of a recommendation 
from the Secretary of Defense to Congress to address section 167, title 
10, U.S.C.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown

                               M9 PISTOLS

    19. Senator Brown. General Dempsey, what is the future of the M9 in 
the Army?
    General Dempsey. It is undetermined at this time. The Army is 
reviewing a current Modular Hand Gun requirement developed by the U.S. 
Air Force for applicability to the Army and adoption as an Army 
requirement. The review is still in early staffing so it would be 
premature to speculate on replacing the M9 at this time. The M9 Pistol 
has served the Army well over the past quarter century and has proven 
itself in numerous combat operations, including Panama, Desert Storm, 
Somalia, as well the current wars in Iraq and Afghanistan.

    20. Senator Brown. General Dempsey, does the Army plan to procure 
more M9s or to compete for a replacement pistol?
    General Dempsey. No, the Army is not currently planning to procure 
any more M9s to include sustainment quantities. Current Army policies 
allow for 100 percent replacement of parts to include receivers during 
reset if necessary to maintain the required quantity of pistols in the 
Army inventory. The M9 Pistol has served the Army well over the past 
quarter century and has proven itself in numerous combat operations, 
including Panama, Desert Storm, Somalia, as well the current wars in 
Iraq and Afghanistan. While the Army does not have a current plan to 
compete for a replacement pistol, the Army is reviewing a current 
Modular Hand Gun Capabilities Production Document developed by the U.S. 
Air Force for applicability to the Army and adoption as an Army 
requirement. The review is still in early staffing so it would be 
premature to speculate on replacing the M9 at this time.
                                 ______
                                 
               Questions Submitted by Senator Rob Portman

                              ABRAMS TANK

    21. Senator Portman. General Dempsey, in your written answers to 
the advance policy questions posed by the committee regarding Army 
weapon system programs you stated, ``In my view, the Abrams 
modernization is necessary and will initially enable integration of the 
emerging network and provide ability to fire the next generation of 
120mm ammunition. Future modernization will provide capability 
improvements in lethality, protection, mission command, mobility, and 
reliability intended to maintain the Fleet's combat overmatch and 
restore space, weight and power margins to keep the tank relevant 
through 2050. The Abrams modernization program is funded in the fiscal 
year 2012 budget request. If confirmed, I will be able to offer an 
assessment as the program matures.'' Do you acknowledge that the fiscal 
year 2012 budget request ends U.S. production of the tank for the first 
time in modern history?
    General Dempsey. The Army has continuously built Abrams tanks since 
1979. The M1A2SEPv2 production ends in fiscal year 2013, last fielding 
in fiscal year 2014. M1A1AIM SA production ends in fiscal year 2011, 
last fielding in fiscal year 2014.

    22. Senator Portman. General Dempsey, are you willing to work with 
this committee to address alternatives that would continue production 
of Abrams tanks beyond 2012?
    General Dempsey. We share your concerns over the viability of the 
industrial base and recognize the challenges associated with starting 
and stopping production. Abrams upgrade production will continue 
fielding 18 Heavy Brigade Combat Teams (HBCT) equipped with M1A2SEPv2s 
and 6 HBCTs equipped with M1A1AIM SA by fiscal year 2014. Because of 
this effort, the Abrams tank will remain a critical part of the Army's 
combat vehicle force beyond 2014.

    23. Senator Portman. General Dempsey, what is the impact on ending 
tank production on U.S. industrial capability in our depots, armor 
facilities, and private companies across our Nation?
    General Dempsey. There will be a production break for the Abrams 
tank in fiscal year 2013. This is the result of the Army completing its 
objective to field upgraded Abrams tanks to 18 HBCTs. The near-term 
plan for Abrams modernization sustains government and contractor System 
Engineering capability. It will not provide the production workload at 
Anniston Army Depot in Anniston, AL and the Joint Systems Manufacturing 
Facility in Lima, OH (formerly known as the Lima Army Tank Plant) that 
would adequately sustain these facilities and key suppliers and 
subcontractors after fiscal year 2013. We are seeking to minimize the 
impact of the break with the approval of the requirement for the next 
package of Abrams tank improvements. At a minimum, the Army anticipates 
the break to continue for at least 2 years.

    24. Senator Portman. General Dempsey, the Army has acknowledged 
that the Abrams tank will remain in the inventory for the foreseeable 
future. What is the Army doing to upgrade the current fleet including 
the Abrams tank in terms of research, development, test, and evaluation 
(RDT&E) and production?
    General Dempsey. The Abrams Program is moving towards a Materiel 
Development Decision in third quarter of fiscal year 2011 that will 
define the next package of improvements for the Abrams tank. Abrams 
near-term modernization will focus on leveraging mature technologies to 
increase power generation, power distribution and fuel efficiency. 
Long-term modernization will provide capability improvements in 
lethality, survivability, mobility and reliability intended to maintain 
the Abrams tank combat overmatch and provide the size, weight, power, 
and cooling margin to keep the Abrams relevant through 2030 and beyond.

    25. Senator Portman. General Dempsey, I understand the Army intends 
to begin modernizing the Abrams tank with new capabilities including 
those directly tied to lessons learned from Iraq deployments, but the 
fiscal year 2012 budget request includes less than $10 million for 
Abrams RDT&E. How is $10 million sufficient in fiscal year 2012 
sufficient for this task?
    General Dempsey. The $9.7 million of RDT&E funds requested in the 
fiscal year 2012 President's budget is sufficient for Abrams 
modernization because the Army anticipates that the majority of the 
$107.5 million in fiscal year 2011 RDT&E funds will carry over to 
fiscal year 2012, thereby providing sufficient funding to execute all 
anticipated fiscal year 2012 RDT&E efforts.

    26. Senator Portman. General Dempsey, will you please provide a 
detailed modernization plan for the Abrams tank?
    General Dempsey. Abrams tank modernization will be done in two 
phases: Near term, we will pursue Power Generation and Power 
Distribution Modernization to enable integration of the Army Directed 
Requirements along with the ability to fire the next generation of 
120mm ammunition. This will be done through field modifications and 
technical insertions as the vehicles are at the depots. Long term 
modernization will provide major capability improvements in lethality, 
survivability, mobility, and reliability intended to maintain the 
Abrams tank combat overmatch and provide the size, weight, power, and 
cooling margin to keep the Abrams relevant through 2030 and beyond.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                           WEST POINT SPEECH

    27. Senator Cornyn. General Dempsey, in a speech at West Point on 
February 25, 2010, Secretary Gates stated, ``The Army also must 
confront the reality that the most plausible, high-end scenarios for 
the U.S. military are primarily naval and air engagements--whether in 
Asia, the Persian Gulf, or elsewhere . . . But in my opinion, any 
future defense secretary who advises the president to again send a big 
American land army into Asia or into the Middle East or Africa should 
`have his head examined'.'' The United States has sent 100,000 or more 
ground troops into these very regions five times over the last 6 
decades. Does our Nation need to maintain its ability to carry out 
large-scale ground campaigns in order to ensure our national security, 
or is the requirement for these types of land operations truly a thing 
of the past?
    General Dempsey. The Secretary clarified his statement a week later 
at the Air Force Academy, stating that it would be wrong to interpret 
his statement as ``questioning the need for the Army at all, or at 
least one its present size, the value of heavy armor generally, and 
even the wisdom of our involvement in Afghanistan.'' We believe that 
the intent is for all the Services to think harder about the entire 
range of missions and how to achieve the right balance of capabilities 
in an era of tight budgets, how to use the assets we have with the 
greatest possible flexibility, and how to truly take advantage of being 
part of the Joint Force. I agree with all of those goals. Most 
importantly we need to look at how we prepare ourselves for an 
uncertain future, since the challenges we will face are different than 
those we grew up with. We take our profession of arms seriously; at all 
levels we are continuously assessing and adapting to changing 
environments. Trends in the 21st century security environment continue 
to create conditions leading to increased instability. The combination 
of population growth, fragile states, demand for natural resources, 
rapid diffusion and access to technology, and the proliferation of 
weapons of mass destruction increase the likelihood of conflict. The 
Army mitigates these conditions through our engagements, exchanges, 
exercise programs, security force assistance activities, and by 
building partnership capacity. As such, we as professionals are working 
to ensure the full complement of Army capabilities are available when 
needed. To meet these requirements we need a consistent flow of forces 
provided by a balanced and affordable Army comprised of ``tailorable'' 
and networked organizations, operating on rotational cycles and capable 
of providing trained and available forces to conduct full-spectrum 
military operations.

    28. Senator Cornyn. General Dempsey, Secretary Gates also 
highlighted that the lessons learned in Iraq and Afghanistan must be 
``incorporated into the Service's DNA and institutional memory.'' He 
went on to say that the Army has always needed ``entrepreneurial 
leaders with a broad perspective and a diverse range of skills.'' In a 
recent interview, you said that the Army needs to focus on mastering a 
few skills that will prepare it for whatever future missions it is 
given, rather than becoming a ``jack-of-all-trades'' in a postwar era. 
In your view, what lessons from Iraq and Afghanistan are most important 
for the Army to carry forward?
    General Dempsey. Our Army is a learning organization--from the 
accumulation of all our experiences in peacetime and at war. Our 
Campaign of Learning is evidence of our commitment to learning. Within 
the Army, leadership remains the multiplying and unifying element of 
combat power. Our lessons learned garnered from 10 years of war for 
leader development clearly highlight the need for agile and adaptive 
leaders who are critical thinkers, innovative and can recognize and 
manage transitions to exploit opportunities for success on the 
battlefield. This also drives a requirement for learning systems that 
facilitate the education and training of our leaders.
    Continuation: As campaigns progressed over the last 10 years, U.S. 
Army forces learned the importance of counter-insurgency and other 
variations of stability and support operations. Leaders of all 
echelons, but especially leaders of squads and platoons, had to become 
masters of negotiation, persuasion and influence with local nationals. 
They had to bridge cultural barriers with local politicians, foreign 
security forces, spiritual leaders and citizens and had to learn ways 
to establish trust across these boundaries. They had to adapt their 
interpersonal skills to move others to the desired end state with 
indirect influence, instead of force or use of direct authority. They 
had to be prepared for rapid transitions between civil support missions 
to instantaneous response to attacks from insurgents and then back to 
peaceful interactions. With greater application of mission command, 
company and higher-level leaders had to learn to operate at greater 
levels of trust down the chain of command. Awareness of the importance 
of the alignment of intent and means across echelons was heightened.
    Army systems for leader development were required to adapt 
concurrently to meet the operational demands for more competent and 
agile leaders of character. This adaptation was deliberately aimed at 
developing critical and innovative thinkers prepared to meet the 
evolution of the Operational Environment. CTCs underwent significant 
adaptations to provide the conditions to train individuals and units in 
all aspects of deployed operations. Authentic native noncombatants were 
introduced in the mission rehearsal exercises, and opposing forces 
(OPFOR) role played the practices of terrorists and insurgents. 
Situational training exercises provided exposure to critical tasks and 
used increased variability to present soldiers with opportunities to 
practice adaptation. Leader development systems and management 
practices were updated to steward the effective development of leaders. 
Professional military education (PME) was modified to push senior- and 
mid-level learning outcomes down to lower ranks. Senior- and mid-level 
education addressed the broadened requirements for stability and 
support operations and operations with joint, interagency, 
intergovernmental and multinational forces. PME also adapted to the 
requirements of modularity and Army Force Generation (ARFORGEN) in 
order to man deploying units with qualified leaders. We have learned 
that we must anticipate change early, to recognize the ``weak signals'' 
in order to maintain our learning advantage over our adversaries, and 
we have learned that we must have training, education and assignment 
systems in place to develop our leaders that are equally as adaptive as 
the leaders themselves.
    Our experiences have underscored the importance of the role of 
leadership at all levels in our Army, the Joint Force, and with our 
partners to accomplish our Nation's aims. Within the Army, leadership 
remains the multiplying and unifying element of combat power. 
Leadership requires influencing others to accomplish the mission while 
improving our organizations at all levels of the Army to maintain the 
successful edge as the Nation's premier land power force. Leadership 
doctrine, founded on the principle of competent leaders of character 
supporting and defending the Constitution, subordinate to civilian 
authority, set the foundation for Army leaders to adapt to the rapid 
onset of operational requirements following 9/11 and the global war on 
terrorism. Our leadership requirements model establishes the attributes 
and competencies expected of all Army leaders. Leaders are responsible 
for upholding Army values and exercising the discipline necessary in 
combat as well as garrison to reflect those values to one another, to 
our citizenry, and to the world. We have learned to emphasize the 
responsibility for all leaders to influence beyond the chain of 
command, to operate in a ``whole-of-government'' approach to the 
Operational Environment and with our international partners. Increased 
attention has also been given to the requirement for resilience in 
leaders and leaders helping others deal with the stresses stemming from 
complex operations and recurring overseas deployments.

    29. Senator Cornyn. General Dempsey, what specific skills that have 
fallen by the wayside over the past decade are in need of further 
development?
    General Dempsey. To date, the Army has had the opportunity to only 
conduct one rotation at a CTC focused on FSOs against a Hybrid Threat, 
which is an insufficient number upon which to draw hard conclusions. 
However, that rotation indicates several areas within warfighting 
functions may need improvement. These warfighting functions include: 
Mission Command on the move, massing the effects of Intelligence, 
Surveillance, and Reconnaissance, fires, and maneuver at a decisive 
point, optimizing use of engineering assets for mobility, counter-
mobility, and survivability, and operating away from protected fixed 
bases, such as Forward Operating Bases and Combat Outposts. Our next 
FSO rotations at CTCs are in August at the NTC, and in September at the 
JRTC. At these training rotations we'll aggressively work to both 
validate our initial impressions and gain new insights into skills that 
have atrophied over the past decade.

                           ARMY END STRENGTH

    30. Senator Cornyn. General Dempsey, in your advance policy 
response to the committee, you stated that it has taken the Army ``10 
years to achieve a size, structure, and capability that we can 
reasonably describe as balanced.'' During this time, the Army has 
increased its Active-Duty end strength in order to meet current and 
future operational requirements. However, as part of his cost-saving 
initiatives, Secretary Gates has proposed reductions to the Army's 
Active-Duty end strength of 22,000 soldiers by 2014, followed by an 
additional 27,000 soldiers beginning in 2015. Over the last 40 years, 
the Army has conducted two major post-conflict end strength reductions, 
first after the Vietnam War and then again after Operation Desert 
Storm. Given that we live in what some senior military leaders, 
including the current Chief of Staff of the Army and the current 
Secretary of the Army, refer to as an ``era of persistent conflict,'' 
how risky is it to reduce our Army's end strength so soon?
    General Dempsey. Assumptions about future demand for Army forces 
are critical to assessing potential implications associated with both 
end strength and force structure adjustments. DOD's assumption is that 
the drawdown in Iraq will continue, and that it will be completed by 31 
December 2011. DOD also assumes that forces in Afghanistan will 
moderate to a sustainable level, in accordance with current 
administration policy. While we cannot predict with certainty when and 
where crises may occur, we do anticipate that in an era of persistent 
conflict, Army forces will continue to be required for a variety of 
missions. The Army does not anticipate that near-term future demands 
will reach a level of commitment seen in recent years, and we are in 
the process of conducting deliberate analysis to determine how and when 
to implement directed reductions. The Army will continue to ensure 
accomplishment of its assigned missions, improve operational readiness 
to meet future demands, and care for the well-being of its soldiers and 
their families.

    31. Senator Cornyn. General Dempsey, extended deployments and the 
high operational tempo have put a substantial strain on our All-
Volunteer Army, resulting in high rates of post-traumatic stress 
disorder, suicide, and alcohol and drug abuse, as well as other health 
issues within the force. The Army's increase in Active-Duty end 
strength was designed, in part, to mitigate these effects and allow for 
longer dwell-time between deployments. If conditions on the ground in 
Afghanistan do not allow for the administration's planned drawdown of 
U.S. troops by 2014, will the reduction of 22,000 soldiers to the 
Army's Active-Duty end strength have a negative impact on the quality 
and resiliency of our force?
    General Dempsey. The additional 22,000 end strength has been an 
integral part of the Army's ability to meet the manning requirements of 
deploying units. The planned reduction is based on the assumption that 
the demand for Army forces will decline by the end of 2013. If that 
assumption proves to be inaccurate, the Army will re-evaluate its 
ability to meet the new demand and engage with the Secretary of Defense 
to determine the appropriate mitigation strategy to meet the new demand 
signal.
    As far as quality and resiliency of the force, the Army will 
continue its efforts to retain soldiers with the greatest potential to 
serve and align them with our leadership development strategy. The 
Army's deliberate and responsible drawdown plans will take into 
consideration operational demands, individual and unit readiness, and 
sustainment of the All-Volunteer Force.

                     ARMY COMBAT BRIGADES IN EUROPE

    32. Senator Cornyn. General Dempsey, the Pentagon reportedly 
intends to decide in the near future how many Army BCTs to keep in 
Europe, which could be as many as four or as few as two. Meanwhile, 
since 2002, two Germany-based BCTs have essentially been in limbo while 
the Pentagon debates their fate. It now appears unlikely that these 
units, which had been scheduled to return to the United States by 2013, 
will meet that deadline. One of these BCTs has been slated to relocate 
to Fort Bliss, TX, a post whose role in our national defense has 
increased greatly in recent years. At Fort Bliss, soldiers are afforded 
unparalleled training opportunities at its vast ranges, whose 
conditions accurately replicate those faced by soldiers in Afghanistan 
and Iraq. In addition, military quality of life at Fort Bliss is high, 
partly as a result of substantial Federal investment in its expansion. 
In your view, is delaying the return of these Army units from Europe 
the right course of action, given that our European allies have their 
own highly capable militaries?
    General Dempsey. The National Security Strategy and the QDR affirm 
the importance of investing in the capacity of strong and capable 
states. These efforts further U.S. objectives of securing a peaceful 
and cooperative international order. The Army's forces represent the 
Nation's enduring commitment to the defense of Europe specified in the 
North Atlantic Treaty Organization's (NATO) Article 5, ensure a 
credible deterrent against all forms of aggression, and provide a 
robust capability to build Allied and partner capacity for coalition 
operations such as in Afghanistan. It must also be noted that the 
majority of nations contributing troops in support of the International 
Security Assistance Force, the NATO's largest and most complex out-of-
area operation, come from NATO members. The relationships needed to 
support these types of operations can only be developed through long-
term, sustained relationships achieved with American servicemembers 
stationed in Europe.

    33. Senator Cornyn. General Dempsey, why are these Army BCTs still 
permanently stationed in Europe, and when will the Army bring them 
home?
    General Dempsey. The Office of Secretary of Defense is currently 
reviewing the disposition of forces in Europe. A decision on the future 
posture in Europe is expected soon. Army forces in Europe will have 
better facilities for soldiers and families, access to better training 
facilities and ranges, and a consolidated footprint that will help U.S. 
Army Europe operate more cost effectively and efficiently.

                  PERMANENT CHANGE OF STATION POLICIES

    34. Senator Cornyn. General Dempsey, current Army policy requires 
relatively frequent Permanent Change of Station (PCS) moves for most 
soldiers and their families. At a time when our military is being 
pressured to find ways to stretch each and every dollar and improve its 
fiscal stewardship, a thoughtful and sensible revision of the Army's 
PCS policies could potentially save millions of dollars annually, which 
the Army could use to meet other requirements. Requiring PCS moves 
every 5 or 6 years--instead of every 2 or 3--would also reduce the 
strain on military families. In so doing, you would enable many 
military spouses to pursue their own careers without facing frequent 
relocations, and you would ease the stress that frequent moves and 
school relocations puts on military children. Do you see any potential 
for the Army to rethink its current PCS policies to cut unnecessary 
expenses and improve the quality of life for military families?
    General Dempsey. As a general rule, the Army does not require 
soldiers to move simply because they have remained at one location for 
a set number of years. Overseas moves are an exception, by the Office 
of the Secretary of Defense policy. They have established specific tour 
lengths based on environmental conditions in the overseas locations.
    Two-thirds of all Army PCS moves result from accessions, 
separations, and professional development. The remaining third are used 
to distribute soldiers internal to the Army. They are used to maintain 
an acceptable match of skills and grades in units to meet operational 
requirements. Over the past 10 years the requirements for moves has 
accelerated by the need to meet the demands of filling deploying units. 
As demand for Army units decreases, we will work to increase the time 
on station for soldiers and families while maintaining the critical 
match of skills and grades across the Army.
                                 ______
                                 
    [The nomination reference of GEN Martin E. Dempsey, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 7, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of Staff, 
U.S. Army, and appointment to the grade indicated while assigned to a 
position of importance and responsibility under title 10, U.S.C., 
sections 601 and 2033:

                             To be General

    GEN Martin E. Dempsey, 0000
                                 ______
                                 
    [The biographical sketch of GEN Martin E. Dempsey, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

           Biographical Sketch of GEN Martin E. Dempsey, USA

Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy - BS - No Major
    Duke University - MA - English
    U.S. Army Command and General Staff College - MMAS - Military Arts 
and Sciences
    National Defense University - MS - National Security and Strategic 
Studies

Military schools attended:
    Armor Officer Basic and Advanced Courses
    National War College
    U.S. Army Command and General Staff College

Foreign language(s): French

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Sep 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Aug 01
MG........................................  1 Sep 04
LTG.......................................  8 Sep 05
GEN.......................................  8 Dec 08
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 75..........................  May 76............  Platoon Leader, B
                                                       Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
May 76..........................  Sep 77............  Support Platoon
                                                       Leader, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Sep 77..........................  Jun 78............  S-1 (Personnel),
                                                       1st Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul 78..........................  Jan 79............  Student, Armor
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Armor School,
                                                       Fort Knox, KY
Apr 79..........................  Jan 80............  Motor Officer, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Jan 80..........................  Oct 80............  Commander, A
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Oct 80..........................  Jun 81............  S-3 (Operations),
                                                       1st Squadron,
                                                       10th Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Jun 81..........................  Jul 82............  Commander,
                                                       Headquarters and
                                                       Headquarters
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Aug 82..........................  May 84............  Student, Duke
                                                       University,
                                                       Durham, NC
Jun 84..........................  Jul 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       English, U.S.
                                                       Military Academy,
                                                       West Point, NY
Aug 87..........................  Jun 88............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jul 88..........................  Sep 89............  Executive Officer,
                                                       4th Battalion,
                                                       67th Armor, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Sep 89..........................  May 91............  S-3 (Operations),
                                                       later Executive
                                                       Officer, 3d
                                                       Brigade, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jul 91..........................  Jun 93............  Commander, 4th
                                                       Battalion, 67th
                                                       Armor, 1st
                                                       Brigade, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul 93..........................  Jun 95............  Chief, Armor
                                                       Branch, Combat
                                                       Arms Division,
                                                       Officer Personnel
                                                       Management
                                                       Directorate, U.S.
                                                       Total Army
                                                       Personnel
                                                       Command,
                                                       Alexandria, VA
Aug 95..........................  Jun 96............  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC
Jul 96..........................  Jul 98............  Commander, 3d
                                                       Armored Cavalry
                                                       Regiment, Fort
                                                       Carson, CO
Jul 98..........................  Oct 99............  Assistant Deputy
                                                       Director for
                                                       Politico-Military
                                                       Affairs, Europe
                                                       and Africa, J-5,
                                                       The Joint Staff,
                                                       Washington, DC
Oct 99..........................  Aug 01............  Special Assistant
                                                       to the Chairman
                                                       of the Joint
                                                       Chiefs of Staff,
                                                       The Joint Staff,
                                                       Washington, DC
Sep 01..........................  Jun 03............  Program Manager,
                                                       Saudi Arabian
                                                       National Guard
                                                       Modernization
                                                       Program, Saudi
                                                       Arabia
Jun 03..........................  Oct 04............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army
                                                       Operation Iraqi
                                                       Freedom, Iraq
Oct 04..........................  Jul 05............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Aug 05..........................  May 07............  Commander, Multi-
                                                       National Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Aug 07..........................  Mar 08............  Deputy Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Mar 08..........................  Oct 08............  Acting Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Dec 08..........................  Present...........  Commanding
                                                       General, U.S.
                                                       Army Training and
                                                       Doctrine Command,
                                                       Fort Monroe, VA
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Assistant Deputy Director for          Jul 98-Oct 99                   Colonel
 Politico-Military Affairs, Europe
 and Africa, J-5, The Joint Staff,
 Washington, DC....................
Special Assistant to the Chairman      Oct 99-Aug 01                   Colonel
 of the Joint Chiefs of Staff, The
 Joint Staff, Washington, DC.......
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
Deputy Commander, U.S. Central         Aug 07-Mar 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Acting Commander, U.S. Central         Mar 08-Oct 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Executive Officer, 3d Brigade, 3d      Jan 91-Feb 91        Lieutenant Colonel
 Armored Division, U.S. Army Europe
 and Seventh Army, Operations
 Desert Shield/Storm, Saudi Arabia.
Commanding General, 1st Armored        Jun 03-Oct 04  Brigadier General/
 Division, U.S. Army Europe and                           Major General
 Seventh Army, Operation Iraqi
 Freedom, Iraq.....................
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Bronze Star Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Parachutist Badge
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring advice and consent of the Senate to complete a form 
that details the biographical, financial, and other information 
of the nominee. The form executed by GEN Martin E. Dempsey, 
USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Martin E. Dempsey.

    2. Position to which nominated:
    Chief of Staff, U.S. Army.

    3. Date of nomination:
    7 February 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 14, 1952; Jersey City, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Diane Sullivan Dempsey.

    7. Names and ages of children:
    Christopher, 32.
    Megan, 31.
    Caitlan, 27.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Veterans of Foreign Wars.
    Member, Association of U.S. Army.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees:
    I, Martin E. Dempsey agree, if confirmed, to appear and testify 
upon request before any duly constituted committee of the Senate.

    13. Personal views:
    I, Martin E. Dempsey, agree, when asked before any duly constituted 
committee of Congress, to give my personal views, even if those views 
differ from the administration in power.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Martin E. Dempsey.
    This 1st day of February, 2011.

    [The nomination of GEN Martin E. Dempsey, USA, was reported 
to the Senate by Chairman Levin on March 15, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 16, 2011.]


     NOMINATION OF HON. LEON E. PANETTA TO BE SECRETARY OF DEFENSE

                              ----------                              


                         THURSDAY, JUNE 9, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Webb, McCaskill, Udall, Hagan, Begich, Manchin, 
Shaheen, Gillibrand, Blumenthal, McCain, Inhofe, Sessions, 
Chambliss, Wicker, Brown, Portman, Ayotte, Collins, Graham, and 
Cornyn.
    Other Senators present: Senators Feinstein and Boxer.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Travis E. Smith, special assistant.
    Majority staff members present: Jonathan D. Clark, counsel; 
Jessica L. Kingston, research assistant; Michael J. Kuiken, 
professional staff member; Peter K. Levine, general counsel; 
Jason W. Maroney, counsel; Thomas K. McConnell, professional 
staff member; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; Lucian L. 
Niemeyer, professional staff member; Michael J. Sistak, 
research assistant; and Richard F. Walsh, minority counsel.
    Staff assistants present: Kathleen A. Kulenkampff, Brian F. 
Sebold, Bradley S. Watson, and Breon N. Wells.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon Peterson, assistant 
to Senator Webb; Tressa Guenov, assistant to Senator McCaskill; 
Casey Howard, assistant to Senator Udall; Roger Pena, assistant 
to Senator Hagan; Lindsay Kavanaugh, assistant to Senator 
Begich; Joanne McLaughlin, assistant to Senator Manchin; Chad 
Kreikemeier, assistant to Senator Shaheen; Elana Broitman, 
assistant to Senator Gillibrand; Jeremy Bratt and Ethan Saxon, 
assistants to Senator Blumenthal; Anthony Lazarski, assistant 
to Senator Inhofe; Lenwood Landrum, assistant to Senator 
Sessions; Tyler Stephens, assistant to Senator Chambliss; 
Joseph Lai, assistant to Senator Wicker; William Wright, 
assistant to Senator Brown; Brad Bowman, assistant to Senator 
Ayotte; Ryan Kaldahl, assistant to Senator Collins; Taylor 
Andreae, assistant to Senator Graham; Dave Hanke, assistant to 
Senator Cornyn; and Joshua Hodges, assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning, the committee meets to consider the 
nomination of Leon Panetta to be Secretary of Defense. Director 
Panetta is no stranger to testifying before Congress over the 
course of his long and distinguished career in public service. 
We welcome you to the committee today, and we thank you, Mr. 
Panetta, for your decades of dedicated service to our Nation 
and your willingness to answer the call once again.
    We know your wife, Sylvia, is not able to be here with you 
today. She has made her own sacrifices over the last 50 years, 
supporting your efforts in both the public and private sector. 
I know that I speak for the committee when I say that we would 
love to thank her in person for the sacrifices that she has 
made. Director Panetta, please let your wife know of the 
committee's gratitude for her support and her sacrifice.
    If confirmed, Director Panetta will replace Secretary 
Robert Gates at the helm of the Department of Defense (DOD). 
When President Obama asked Secretary Gates, then-President 
Bush's Secretary of Defense, to stay on in that position, it 
provided welcomed continuity and experience in our defense 
leadership. Director Panetta's nomination to be Secretary of 
Defense represents change, but brings an impressive level of 
continuity as well.
    The next Secretary of Defense will face an extraordinarily 
complex set of demands on our Armed Forces. Foremost among them 
are the ongoing wars in Afghanistan and Iraq. Between these 2 
conflicts, we continue to have approximately 150,000 troops 
deployed.
    The U.S. military is also providing support to the North 
Atlantic Treaty Organization (NATO) operations in Libya. In 
addition, even after the extraordinary raid that killed Osama 
bin Laden, terrorist threats against our Homeland continue to 
emanate from Pakistan, Yemen, Somalia, and elsewhere.
    The risk of a terrorist organization getting their hands on 
and detonating an improvised nuclear device or other weapon of 
mass destruction remains one of the gravest possible threats to 
the United States. To counter this threat, the Defense 
Department is working with the Departments of State, Energy, 
Homeland Security, and other U.S. Government agencies to 
prevent the proliferation of nuclear weapons, fissile 
materials, and dangerous technologies.
    A number of key national security decisions will have to be 
made in the coming weeks and months. Even as the drawdown of 
U.S. forces in Iraq is on track, recent signs of instability 
may lead Iraq's political leadership to ask for some kind of 
continuing U.S. military presence beyond the December 31st 
withdrawal deadline agreed to by President Bush and Prime 
Minister Maliki in the 2008 security agreement between our 
countries.
    Another key decision point is looming in Afghanistan 
regarding reductions in U.S. forces starting in July. President 
Obama said the other day that, ``It is now time for us to 
recognize that we have accomplished a big chunk of our mission 
and that it is time for Afghans to take more responsibility.''
    The President has also said that the reductions starting in 
July will be ``significant'' and not just ``a token gesture''. 
I support that decision. The more that Afghan leaders 
understand that we mean it when we say our commitment is not 
open-ended, the more serious they will be in preparing Afghan 
security forces to assume security responsibility for all of 
Afghanistan.
    I support the so-called ``transition strategy'', which 
calls for Afghan security forces to take more and more of the 
lead in providing for their country's security. The more that 
Afghan security forces do that, the better are the chances of 
success because the Taliban's biggest nightmare is a large, 
effective Afghan Army, an army already respected by the Afghan 
people, in control of Afghanistan's security.
    Having Afghan security forces in the lead would deprive the 
Taliban of their biggest propaganda target, the claim that 
foreign troops are occupiers of Afghanistan. There is nothing 
inconsistent between transitioning security responsibility to 
Afghan security forces and a long-term strategic relationship 
with Afghanistan, which is also important to sustaining a 
successful outcome.
    Another major issue facing the Department is the stress on 
our Armed Forces after 10 years of nonstop war. The repeated 
deployments of our military over the last decade has resulted 
in many of our servicemen and women being away from their 
families and homes for two, three, four, or more tours. It is 
not only our force which is stressed, so are our military 
families.
    Our incredible men and women in uniform continue to answer 
the call, but we must act to reduce the number of deployments 
and to increase the time between deployments.
    The next Secretary of Defense will be required to juggle 
the competing demands on our forces while Washington struggles 
with an extremely challenging fiscal environment. The defense 
budget will not, and should not, be exempt from cuts. But this 
will require Congress, working with the next Secretary of 
Defense, to scrub every program and expenditure in the defense 
budget and to make tough choices and tradeoffs between the 
requirements of our warfighters today and preparations for the 
threats of tomorrow.
    The administration in February submitted a defense budget 
for fiscal year 2012, which included some efficiency savings. 
But in April, President Obama announced he wanted to reduce 
security spending by $400 billion over 12 years, starting in 
the next fiscal year, presumably including under the umbrella 
of security spending the budgets of the Pentagon, Departments 
of State and Homeland Security.
    Now we have asked the administration what part of the $400 
billion reduction do they recommend be Pentagon cuts, and how 
many of those for fiscal year 2012? So far, we have received no 
answer.
    Hopefully, today we will get Mr. Panetta's understanding of 
that matter and his opinion on the central fiscal issues. His 
service as President Clinton's Director of the Office of 
Management and Budget (OMB) is invaluable because he 
understands the inner workings of the budget process and 
because he shaped the decisions that helped achieve the budget 
surpluses of the late 1990s.
    Fortunately for the Nation, Director Panetta brings a 
compelling record of achievement and experiences well suited to 
the demands of the position for which he has been nominated.
    Leon Panetta has repeatedly demonstrated an ability to work 
across party lines. Since entering public service in 1966, he 
worked on the staff of the Republican Whip in the U.S. Senate, 
and headed the Office of Civil Rights in the Nixon 
administration. He later won election to the House of 
Representatives as a Democrat, where he served eight terms and 
became chairman of the House Budget Committee.
    Throughout his time in public service, Leon Panetta has 
been guided by a clear moral compass. He has said, ``In 
politics, there has to be a line beyond which you don't go--the 
line that marks the difference between right and wrong, what 
your conscience tells you is right. Too often,'' he said, 
``people don't know where the line is. My family, how I was 
raised, my education, all reinforced my being able to see that 
line.''
    Finally, Leon Panetta has been intimately involved in the 
most pressing national security issues of our time during his 
tenure as President Obama's Director of the Central 
Intelligence Agency (CIA). This includes his having personally 
overseen the manhunt for Osama bin Laden and the impressive 
operation that brought an end to al Qaeda's murderous leader.
    This operation epitomizes the way in which the CIA and the 
Defense Department are finally working together to support each 
other in the counterterrorism operations. The assault on bin 
Laden's hideout is the first significant instance, I believe, 
of an operation that could have been conducted under Defense 
Department authorities under U.S. Code title 10 but that was 
instead executed under the authorities of title 50, with the 
Director of the CIA exercising operational control over our 
elite military force.
    Now let me conclude by expressing, on behalf of this 
committee, our gratitude and our deep admiration for the man 
whose shoes Director Panetta has been nominated to fill, 
Secretary Robert Gates. Secretary Gates' service to the country 
has been extraordinary, having worked in the administration of 
eight Presidents.
    He left the comfort and rewards of private life, following 
a long career in Government, to serve his country again in the 
critical post of President Bush's Secretary of Defense at a 
difficult time in our history. Throughout his tenure across the 
Bush and Obama administrations, Secretary Gates' leadership, 
judgment, and candor have earned him the trust and respect of 
all who have worked with him.
    Secretary Gates has combined vision and thoughtfulness with 
toughness and clarity and courageous, firm decisionmaking. I 
would add that right from the start, Secretary Gates 
established a direct and open relationship with Congress, and 
this committee in particular, for which I am personally most 
grateful.
    I believe history will judge Secretary Gates' time as 
Secretary of Defense to have been truly exceptional.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me welcome Director Panetta and congratulate him on his 
nomination to be the next Secretary of Defense.
    I am grateful for his remarkable career of public service 
and his willingness to serve in this new and very important 
capacity. I am appreciative of your family and the support they 
have given to you.
    Let me also welcome our colleagues from California today, 
who will shortly underscore your extraordinary qualifications 
to assume the position of Secretary of Defense.
    Your successes as Director of the CIA over the last 2 
years, and there have been many, especially finding and 
eliminating Osama bin Laden, are a credit to you, and to the 
men and women of the Intelligence Community. At the same time, 
you and I know the director would be the first to admit that he 
has big shoes to fill, if confirmed, in the person of Robert 
Gates.
    I have seen many Secretaries of Defense in my years, and I 
believe that history will long remember Secretary Gates as one 
of America's finest, most effective, and most impactful 
Secretaries of Defense.
    One of the key criteria that we should be looking for in 
the next Secretary of Defense is continuity--the continuation 
of the wise judgment, policies, and decisionmaking that have 
characterized Secretary Gates' leadership of DOD. Thanks to the 
good work of Secretary Gates, his team, and our men and women 
in uniform, the next Secretary of Defense will take office with 
a great deal of positive momentum. But many consequential 
challenges remain.
    Indeed, over the next several years, our country faces 
decisions related to our national security and defense that 
will echo for decades to come, decisions that will determine 
whether we remain the world's leading global military power, 
able to meet our many commitments worldwide, or whether we will 
begin abandoning that role.
    What will have perhaps the most impact on this outcome is 
the President's stated goal of cutting $400 billion in defense 
spending by 2023, on top of the $178 billion in efficiencies in 
top line reductions that Secretary Gates has already announced.
    In recent weeks, Secretary Gates has been sounding the 
alarm against misguided and excessive reductions in defense 
spending that cut into the muscle of our military capabilities. 
I could not agree with him more. Defense spending is not what 
is sinking this country into fiscal crisis. If Congress and the 
President act on that flawed assumption, they will create a 
situation that is truly unaffordable--the decline of U.S. 
military power.
    I know there will be cuts to defense spending, and some 
reductions are no doubt necessary to improve the efficiency of 
DOD. But I also remember, and I think you do also, Director 
Panetta, when General ``Shy'' Meyer, then Chief of Staff of the 
Army, who warned in 1980 after draconian cuts were made, 
testified before this committee that we had a ``hollow army''.
    That is not an experience that we can or should repeat in 
the years to come. We must learn the lessons of history. I 
would welcome the nominee's opinion on this vital matter, 
including how the President's proposal could be implemented.
    Another major decision involves how we achieve our 
objectives in the three conflicts in which U.S. forces are now 
engaged--Iraq, Afghanistan, and Libya. In Iraq, the key 
question now is whether some presence of U.S. forces will 
remain in Iraq beyond the end of this year, pending Iraqi 
request and approval, to support Iraq's continuing needs and 
our enduring national interests. I believe such a presence is 
necessary, as Secretary Gates has argued.
    In Afghanistan, the main question is the size and scope of 
the drawdown of forces beginning this July. Here, too, I would 
agree with Secretary Gates that any drawdown should be modest, 
so as to maximize our ability to lock in the hard-won gains of 
our troops through the next fighting season.
    Finally, in Libya, there are signs that Gaddafi may be 
starting to crack, but the odds of a stalemate remain far too 
high. I believe U.S. strategy should be to reduce those odds as 
much as possible and quickly force Gaddafi to leave power, 
rather than hoping we achieve that objective with minimal 
effort.
    Another significant challenge facing the Defense Department 
is acquisition reform for its weapons and services. Secretary 
Gates has made some courageous decisions in attempting to get 
major weapons procurement programs on track. A similar focus 
needs to be brought to how the Defense Department chooses to 
buy billions of dollars in services to maintain the highest 
degree of readiness.
    In addition, especially in this budget environment, it will 
be important to continue to eliminate weapons programs that are 
over cost, behind schedule, and not providing improvements in 
combat power and capabilities. After 10 years of war, we must 
continue to eliminate every dollar in wasteful spending that 
siphons resources away from our most vital need--enabling our 
troops to succeed in combat.
    Director Panetta, you are nominated to lead our Armed 
Forces amid their 10th year of sustained overseas combat. Not 
surprisingly, this has placed a major strain on our forces and 
their families. Yet, our military is performing better today 
than at any time in our history.
    This is thanks to the thousands of brave young Americans in 
uniform who are writing a new chapter in the history of our 
great country. They have shown themselves to be the equals of 
the greatest generations before them.
    The calling that all of us must answer in our service is to 
be equal and forever faithful to the sacrifice of these amazing 
Americans.
    Mr. Chairman, Senator Inhofe has to leave, and he would 
like to make just a very brief 10-second comment.
    Senator Inhofe. Yes, thank you, Senator McCain.
    I only want to say that because of an unavoidable conflict, 
I have to leave. But I was honored to serve for 8 years with 
then-Congressman Panetta, and I have always considered him to 
be a very close friend.
    I look forward to supporting his confirmation and serving 
with him in his new capacity.
    Thank you for the opportunity to say that.
    Chairman Levin. Thank you very much, Senator Inhofe.
    We have our two wonderful colleagues from California here 
to introduce Director Panetta, and we are delighted to have 
both of you here and to have you as colleagues. It is a treat 
for all of us that you are with us.
    Senator Feinstein?
    Who, by the way, is also chair, may I say, of the Senate 
Intelligence Committee, so she has a lot of very direct 
experience now and long before with Director Panetta.

STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR FROM THE STATE 
                         OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman and 
members of the committee.
    It is really a distinct pleasure for me to introduce the 
Director of the CIA and distinguished Californian, Leon 
Panetta, who was nominated by President Obama on April 28 to be 
the 23rd Secretary of Defense.
    As members of this committee well know, in his 47 years of 
public service, Director Panetta has held the positions of 
congressman, chairman of the House Budget Committee, Director 
of OMB, Chief of Staff to the White House, Co-Director with his 
wife of the Leon and Sylvia Panetta Institute for Public 
Policy--which I have had the pleasure of speaking before--
member of the Iraq Study Group, Director of the CIA, and from 
1964 to 1966, a second and then a first lieutenant in the U.S. 
Army as an intelligence officer.
    I would add to that list trusted adviser to the President 
and respected member of his national security team. In the 
course of 2 years as Director, he has mastered the intelligence 
field, led the CIA through a very tumultuous time, restored 
badly damaged relationships with Congress and with the Director 
of National Intelligence, and carried out President Obama's 
personal instruction to him to find Osama bin Laden.
    I have no doubt that his past experience and his 
capabilities prepare Leon Panetta to meet the major challenges 
before DOD. With knowledge of CIA operations and analysis, he 
will come to the Pentagon with a thorough understanding of the 
situation in Afghanistan, as well as the aggravating factors of 
our relationship with Pakistan. Through CIA analysis and 
operations, he is also well aware of the other contingencies 
around the globe where the U.S. military may be called to 
deploy.
    Director Panetta is also well positioned to guide the 
Department through the constrained budget environment, which 
the chairman spoke of, along with the rest of Government. He 
possesses the credentials and experience to make cuts where 
needed and where prudent. I am confident that he will do so in 
a way that keeps the military strong and capable and in a way 
that maintains the cohesion of the Department and its Services.
    Finally, let me recognize that there are many officials in 
the Government with the intellect and management skill to do 
this job. Leon brings something more. He has an interesting 
leadership style, with a deft personal touch that really 
matters to the people in his charge and that greatly benefits 
the oversight responsibility that we in Congress have.
    Let me give you an example. It was early in his tenure at 
the CIA in 2009 when Director Panetta requested an urgent 
meeting with the Senate Intelligence Committee to brief us on a 
program that he had just learned of and that he had learned had 
never before been briefed to Congress. He found that 
unacceptable, and we very much appreciated his position.
    In the 2 years since, he has never declined to answer a 
question or provide us with his candid views. I believe the 
vice chairman of the committee, who is a member of this 
committee, Senator Chambliss, can testify to this. Leon has 
been completely forthright and motivated only by what is best 
for the CIA and, more importantly, this Nation.
    Let me conclude. A National Public Radio interview last 
week with Secretary Gates noted that the healthcare budget of 
DOD was bigger than the entire budget of the CIA and that no 
other position can fully prepare someone to be Secretary of 
Defense.
    I have great respect for Secretary Gates and praise him for 
his service to this country. Beyond all reasonable 
expectations, he has been an outstanding Secretary of Defense. 
But I would suggest to you that Leon Panetta, who has served 
honorably and successfully in Congress, at OMB, at the White 
House, and now the CIA, is prepared and uniquely qualified to 
be another outstanding Secretary of Defense in this very 
challenging time.
    I thank the committee.
    Chairman Levin. Thank you very much, Senator Feinstein, for 
a very strong introduction.
    Now, Senator Boxer?

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Thank you so much.
    I clearly appreciate every word that my colleague Senator 
Feinstein said about my friend Leon Panetta. What I am going to 
try to do is add a little bit more of a personal side because I 
have known this man and worked with him since 1982, when I was 
elected to Congress, and he became one of my mentors at that 
time.
    Eventually, I served on the House Budget Committee where he 
was the chairman, and I watched him very carefully reach out 
across every kind of line that would divide us--Republican, 
Democratic, liberal, conservative, moderate. We were facing at 
that time a lot of new, perplexing issues.
    One was the AIDS crisis. No one quite knew where this was 
headed, what it was about. I remember going to Leon and saying 
there is this new disease, and nobody quite understands it, and 
we haven't done anything about it. He said, ``You know, why 
don't you hold some hearings on it? It seems to really concern 
you, and bring in the Republicans,'' and we did.
    We were able to get the very first funding in that time for 
AIDS research because Leon was willing to listen. This is 
someone who is very smart, and he gets it. But he also was 
willing to listen to all sides, and I think we have seen that 
in every single job that he has fulfilled. This is a man who 
has dedicated himself to public service, and we are so grateful 
to him.
    I won't go through every job he has held. First of all, it 
would take too much time. Second of all, Senator Feinstein 
highlighted so many of those. But to be someone who could work 
as effectively behind the scenes as you can in front of a 
camera, to be someone who could be such a trusted adviser that 
two Presidents have chosen him.
    I could just go on about Leon. I am sure you don't want me 
to because you have a lot of work to do. Let me say for the 
people of California what he has meant to us.
    He has recognized the importance of our resources in our 
State, namely our coast and our ocean. He stepped out in front 
in the early years and said this is an economic issue for us, 
and he preserved that coast. That is forever. That Monterey 
sanctuary is forever. He is visionary.
    Then when we saw him move into the national security arena, 
as he did at the CIA, and the work he did in the latest 
achievement that he can talk about, and doesn't really do that 
much, in terms of making sure that Osama bin Laden was finally 
taken out. This was a brave mission by our military, and Leon 
Panetta was a part of the decisionmaking.
    I think at this time where we are engaged around the world 
in so many difficult conflicts, so many difficult conflicts, he 
is bringing now the intelligence perspective to the job.
    I would ask unanimous consent that my formal statement be 
printed in the record.
    I just want to turn to Leon at this time, just as a Senator 
from California and a friend, and say thanks so much for 
everything you have done throughout your career for this 
country. I know your origins. I know how proud your family is, 
and I think we all share that pride in you.
    Good luck, and I hope the committee confirms you quickly.
    Thank you very much.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement by Senator Barbara Boxer

    Mr. Chairman and colleagues--good morning.
    I am so very pleased to be here today to introduce my former 
colleague and fellow Californian, Leon Panetta, President Obama's 
nominee to be Secretary of Defense.
    I can think of no better person to fill this critical post at a 
time when our Nation continues to face threats to our national 
security.
    Mr. Panetta has devoted 4 decades of his life to public service. 
During that time, he has earned the trust and confidence of his 
colleagues on both sides of the aisle.
    The son of Italian immigrants, Mr. Panetta was born and raised in 
the city of Monterey, CA.
    Shortly after earning his bachelor and law degrees from Santa Clara 
University, Mr. Panetta joined the U.S. Army as an intelligence officer 
and went on to receive the Army Commendation Medal for his service.
    Mr. Panetta came to Washington in 1966 and rose to become the 
Director of the U.S. Office for Civil Rights, where he fought for the 
desegregation of public schools even as other government officials were 
calling for slower enforcement of civil rights laws in the south.
    Mr. Panetta does what he thinks is right, and I saw him bring that 
same strength and passion to his work as a Member of the House of 
Representatives, where I am proud to have served with him.
    He was my chairman of the House Budget Committee and together we 
worked on the first ever funding to fight AIDS.
    Among his many accomplishments, Mr. Panetta authored the Hunger 
Prevention Act of 1988, worked to extend Medicare and Medicaid to cover 
hospice care for the terminally ill, and was a critical voice in 
protecting California coastlines.
    As the Director of the Office of Management and Budget during the 
Clinton administration, Mr. Panetta learned the intricacies of the 
Federal budget process and, most importantly, how to effectively set 
and manage a budget.
    He also served as President Clinton's Chief of Staff, engaging at 
the highest levels on critical national security matters.
    For the past 2 years, Mr. Panetta has served as Director of the 
Central Intelligence Agency, where he has been responsible for 
protecting Americans around the world. Most recently, he oversaw the 
covert mission that located and killed Osama bin Laden, the founder of 
al Qaeda and mastermind behind the horrific attacks of September 11, 
2001.
    Bin Laden's death was the result of close coordination between our 
military and intelligence communities and Mr. Panetta's deep 
understanding of our Intelligence Community will be particularly 
beneficial in this new role.
    I think it is clear that Mr. Panetta has the unique experience 
needed to serve our Nation at this critical time and I know he will 
continue to work tirelessly to keep America safe.
    Mr. Chairman, thank you for this opportunity to speak on behalf of 
Mr. Panetta.
    I hope that he will get a favorable vote from your committee.

    Chairman Levin. Thank you, Senator Boxer, for a very moving 
introduction and tribute.
    You are both welcome to stay or leave. I know you both have 
committee chairs that you have to fulfill responsibilities.
    Senator Boxer. I have a bill on the floor. By the way, we 
do have a bill on the floor about the Economic Development Act, 
and I want to remind everybody. So I will be going down on the 
floor.
    Thank you.
    Chairman Levin. You never miss an opportunity to make your 
point effectively. [Laughter.]
    Thank you very much.
    Let me now call on Mr. Panetta. After your opening 
statement, we will ask you the usual questions and then turn to 
our questions.
    Thank you very much again for your service. Director 
Panetta?

STATEMENT OF HON. LEON E. PANETTA, NOMINATED TO BE SECRETARY OF 
                            DEFENSE

    Mr. Panetta. Thank you very much, Chairman Levin, Ranking 
Member McCain, all of the distinguished members of the 
committee.
    I am deeply honored and deeply humbled to be here as the 
President's nominee to be Secretary of Defense.
    I also want to take this moment to thank my fellow 
Californians, Senators Feinstein and Boxer, who are not only 
distinguished Senators who have represented their State well, 
but are dear friends and dear colleagues.
    The role of Secretary of Defense, while, without question, 
it involves a very large responsibility in size alone, still in 
a very basic way is similar to the role of the CIA Director in 
that our first and foremost mission is to protect the country. 
If confirmed, my number one job will be to ensure that America 
continues to have the best-trained, the best-equipped, and the 
strongest military in the world in order to make sure that we 
protect our country.
    As many of you know, I have devoted my career to public 
service. But it began a long time ago when I served as an 
intelligence officer in the U.S. Army. I was proud to wear the 
uniform of our country, and my respect and my admiration for 
our Nation's Armed Forces has only grown in the decades since.
    My youngest son, Jim, served in Afghanistan and received 
the Bronze Star. I have personally witnessed the tradition of 
service and sacrifice that drives each generation to fulfill a 
fundamental duty to our country.
    In addition to respecting that great tradition of duty, I 
have done a number of things to try and prepare for this very 
difficult and challenging job. First, in the weeks since my 
nomination, I spent a number of hours with Bob Gates. Bob is a 
dear friend, and he and I first got to know each other as we 
were building our careers in public service.
    We also served together on the Iraq Study Group, and we 
continue to serve together as members of the President's 
national security team. We share a common belief that the 
national security of this country is the responsibility of all 
Americans, regardless of party.
    I, too, believe that he will be remembered as one of the 
greatest Secretaries of Defense in our Nation's history for the 
way he led the Department during a time of war and for the 
crucial reforms that he has tried to put in place in the way 
the Pentagon does business. Those are reforms that I intend to 
carry on.
    Second, I talked with our Service Secretaries and the 
Service Chiefs. I believe it is important to have a candid, 
open line of communication between the Secretary and all of the 
Service Chiefs. They are the ones that are out there leading 
each of their Services, and I need to know what they are 
thinking, and I need to know what is important in terms of 
serving the interests of the troops that they directly lead.
    One of those chiefs told me for our troops, there has been 
no shortage of war. Indeed, we are a Nation at war. Our All-
Volunteer Force has been stretched by combat that has lasted 
nearly a decade. We owe it to them, we owe it to their families 
to ensure that they have the best leadership, the best 
training, the best equipment, the best benefits, and the best 
healthcare that we can give them.
    I pledge to them and I pledge to you that every deployment 
decision that I make will be mindful of the stresses on our men 
and women in uniform and on their families.
    Third, I have reached out to the former Secretaries of 
Defense, both Democrat and Republican, and asked for their 
advice. To a person, they impressed upon me how important it 
was to stay focused on the management of the Pentagon. This is 
the biggest enterprise in our Government, and it requires 
focused, hands-on management, which is, frankly, the only way I 
know how to do business.
    Fourth, I have sat down with many of you and have known 
many of you throughout my career. Because I really do believe 
that Congress has to be a partner in this role in the 
protection of our country, I am a creature of Congress and I 
believe that the Pentagon is made stronger by your oversight 
and by your guidance.
    As a young legislative assistant a long time ago here in 
the Senate, I had the honor of seeing firsthand the 
bipartisanship of leaders like Dick Russell and Henry Jackson, 
John Stennis, and Barry Goldwater. As a Member of Congress, I 
saw that tradition carried on by other great leaders.
    I believe deeply in the tradition of strong, bipartisan 
national security leadership. You, Mr. Chairman, and you, 
Senator McCain, have carried on that tradition. I thank you for 
that.
    This is a time of historic change. Unlike the Cold War, 
when we had one main adversary, we face a multitude of 
challenges--al Qaeda and other global terrorist networks, 
places like Yemen, Somalia, North Africa, not just the 
Federally Administered Tribal Areas (FATA) in Pakistan. 
Dangerous enemies spread out across the world.
    We face insurgents and militants who cross borders to 
conduct attacks. We face the proliferation of dangerous weapons 
in the hands of terrorists, in the hands of rogue nations. We 
face cyber attackers, a whole new arena of warfare that can 
take place not only now, but in the future, and something we 
have to pay attention to.
    We face the challenge of rising and changing powers and 
nations in turmoil, particularly in the Middle East, undergoing 
enormous political transformation. We are no longer in the Cold 
War. This is more like the ``blizzard war'', a blizzard of 
challenges that draw speed and intensity from terrorism, from 
rapidly developing technologies, and the rising number of 
powers on the world stage.
    But despite the times we live in, there is reason to be 
confident. The operation that killed Osama bin Laden, in my 
view, has not only made clear to the world that we will do what 
we have to do, but it has also given us the greatest chance 
since September 11 to disrupt, dismantle, and to defeat al 
Qaeda.
    But to do that, to be able to finish the job, we have to 
keep our pressure up. If confirmed, my first task at DOD will 
be to ensure that we prevail in the conflicts that we are 
engaged in. In Afghanistan, we must continue to degrade the 
Taliban. We have to train security forces. We have to help the 
government take ownership of their country so that they can 
govern and protect their country.
    In Iraq, we must assure that the Iraqi military and 
security forces are prepared to safeguard their nation so that 
it can become a stable democracy in a very important region of 
the world.
    As we do that, I am very aware that we must be highly 
disciplined in how we spend the taxpayers' precious resources. 
This committee well knows that the days of large growth and 
unlimited defense budgets are over. Our challenge will be to 
design budgets that eliminate wasteful and duplicative spending 
while protecting those core elements that we absolutely need 
for our Nation's defense.
    I do not believe, based on my long experience in government 
and working with budgets, that we have to choose between strong 
fiscal discipline and strong national defense. I don't deny 
that there are going to be tough decisions that have to be made 
and tough choices that have to be made. But we owe it to our 
citizens to provide both strong fiscal discipline and a strong 
national defense.
    Finally, and most importantly, it is the job of Secretary 
of Defense to be a tireless advocate for our troops and for 
their families. It is their sacrifice and their dedication that 
have earned the respect of a grateful nation and inspired a new 
generation to volunteer to wear the uniform of our country.
    They put their lives on the line to fight for America, and 
I will just as surely fight for them and for the families who 
support and sustain them.
    As Director of the CIA, I had no more solemn duty than 
sending young people into harm's way to put their lives on the 
line. After we lost seven of our colleagues in Afghanistan in 
December 2009, I had to do what my colleagues in the military 
do all too often--visit the wounded at Bethesda, attend the 
ramp ceremony at Dover, offer a prayer at the side of an 
Arlington Cemetery gravesite for a patriot who left this world 
too young.
    Not one day will pass when I don't think of the brave souls 
who have fought and died and those who fight today for our 
freedom. As Secretary Gates emphasized in his last trip to the 
troops, they will always be in my thoughts and prayers.
    If confirmed, Mr. Chairman, I pledge to you that I will 
always keep our troops foremost in my mind, that I will be a 
careful, accountable steward of our Nation's precious 
resources, that we will have the strongest national defense in 
the world, and that you will always have my best and most 
candid advice, and that I will always, always seek yours.
    I am the son of Italian immigrants. My father used to say 
to me time and time again that to be free, we have to be 
secure. That is the pledge that I make to you, that I will do 
everything I can to keep America secure so that it can be free. 
I will do that if I am confirmed as Secretary of Defense.
    Thank you.
    [The prepared statement of Mr. Panetta follows:]

               Prepared Statement by Hon. Leon E. Panetta

    Chairman Levin, Ranking Member McCain, and distinguished members of 
the committee.
    I am humbled to be here as the President's nominee to be Secretary 
of Defense. The role of the Secretary of Defense is similar to the role 
of the Central Intelligence Agency (CIA) Director--first and foremost 
to protect the country. If confirmed, my number one job will be to 
ensure that America continues to have the best-trained, best-equipped, 
and strongest military in the world.
    I have devoted my career to public service--and it began when I 
served as an intelligence officer in the U.S. Army. I was proud to wear 
the uniform of my country--and my respect and admiration for our 
Nation's Armed Forces have only grown in the decades since. My youngest 
son Jim served in Afghanistan and received the Bronze Star. So I have 
personally witnessed the tradition of service and sacrifice that drives 
the generations to fulfill a duty to our country.
    In addition, I have done a number of things to try and prepare for 
this job.
    First, in the weeks since my nomination, I have spent a number of 
hours with Bob Gates. Bob and I first got to know each other as we were 
building our careers in public service. We also served together on the 
Iraq Study Group. We share a common belief that national security is 
the responsibility of all Americans, regardless of party. I believe he 
will be remembered as one of the greatest Secretaries of Defense in our 
Nation's history for the way he led the Department during a time of 
war, and for the crucial reforms he made in the way the Pentagon does 
business--reforms that I intend to carry on.
    Second, I talked with the Service Secretaries and the Service 
Chiefs--I believe it is important to have candid, open lines of 
communication between the Secretary and the Services. One of those 
chiefs told me, ``For our troops, there is no shortage of war.''
    Indeed, we are a Nation at war. Our All-Volunteer Force has been 
stretched by combat that has lasted nearly a decade. We owe it to them 
and their families to ensure that they have the best leadership, the 
best training, the best equipment, the best benefits and health care 
that we can give them. I pledge to them and I pledge to you that every 
deployment decision I make will be mindful of the stresses on our men 
and women in uniform and their families.
    Third, I reached out to every living former Secretary of Defense--
Democrat and Republican--and asked for their advice. To a person, they 
impressed upon me how important it was to stay focused on management of 
the Pentagon. This is the biggest enterprise in our government, and it 
requires focused, hands-on management--which is, frankly, the only way 
I know how to do business.
    Fourth, I sat down with many of you--because Congress is my partner 
in this role and in the protection of the country. I'm a creature of 
Congress and I believe that the Pentagon is made stronger by your 
oversight. As a young legislative assistant, I had the honor of seeing 
firsthand the bipartisanship of leaders like Dick Russell, Henry 
Jackson, John Stennis, and Barry Goldwater. I believe deeply in the 
tradition of strong bipartisan national security leadership that you 
and this committee carry on.
    This is a time of historic change. Unlike the Cold War, when we had 
one main adversary, today we face a multitude of challenges--al Qaeda 
and other global terrorist networks, insurgents and militants who cross 
borders, the proliferation of dangerous weapons, cyber attackers, 
rising and changing powers, and nations--particularly in the Middle 
East--undergoing enormous political transformation.
    We are no longer in the Cold War. This is the Blizzard War--a 
blizzard of challenges that draws speed and intensity from rapidly 
developing technologies and the rising number of powers on the world 
stage.
    But, despite the times we live in, there is reason to be confident. 
The operation that killed Osama bin Laden, in my view, has given us the 
greatest chance since September 11 to disrupt, dismantle, and defeat al 
Qaeda permanently. We must keep up the pressure.
    If confirmed, my first tasks at the Department of Defense will be 
to ensure that we prevail in the conflicts in which we are now engaged. 
In Afghanistan, we must continue to degrade the Taliban, train the 
security forces, and help the government take ownership for the 
country's progress and security. In Iraq, we must assure that the Iraqi 
military and security forces are prepared to safeguard their nation.
    As we do that, I am very aware that we must be highly disciplined 
in how we spend the taxpayer's precious resources. This committee well 
knows: the days of unlimited defense budgets are over. Our challenge 
will be to design budgets that eliminate wasteful and duplicative 
spending while protecting those core elements we need for our Nation's 
defense. I do not believe that we have to choose between strong fiscal 
discipline and strong national defense. We owe it to our citizens to 
provide both.
    Finally, it is the job of the Secretary of Defense to be a tireless 
advocate for our troops and their families. It is their sacrifice and 
dedication that have earned the respect of a grateful nation . . . and 
inspired a new generation to wear the uniform of our country. They put 
their lives on the line to fight for America, and I will just as surely 
fight for them and for the families who support and sustain them.
    As Director of the CIA, I had no more solemn duty than sending 
young people into harm's way. After we lost seven of our colleagues in 
Afghanistan in December 2009, I had to do what my colleagues in the 
military do all too often--visit the wounded at Bethesda, attend the 
ramp ceremony at Dover, and offer a prayer at the side of an Arlington 
Cemetery grave for a patriot who left this world too young.
    Not one day will pass when I won't think of the brave souls who 
fight for our freedom.
    If confirmed, Mr. Chairman, I pledge to you that I'll always keep 
our troops foremost in my mind . . . that I will be a careful, 
accountable steward of our national resources . . . that we will have 
the strongest national defense in the world . . . and that you'll 
always have my best and candid advice. To be free, we must be secure. 
That is my pledge to you if I am confirmed as Secretary of Defense.

    Chairman Levin. Thank you so much, Director Panetta, for a 
powerful, moving, and a very straightforward statement.
    We have standard questions, which we ask of nominees before 
we take turns at asking our own questions, and I will put those 
questions to you now.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation progress?
    Mr. Panetta. No, I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Panetta. Yes, they will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good-
faith delay or denial in providing such documents?
    Mr. Panetta. Yes, I will.
    Chairman Levin. Thank you.
    I think what we will do is we will be here all morning, and 
then we will have a break for lunch. Then we are going to go 
into a classified session this afternoon.
    Let us start with a 7-minute first round here for 
questions.
    Director Panetta, in answer to prehearing questions, you 
said that you support the July 2011 date set by President Obama 
for the beginning of a process of transferring increasing 
responsibility for Afghanistan's security to the Afghan 
security forces and of drawing down U.S. forces from 
Afghanistan. President Obama recently said that the size of 
U.S. troop reductions from Afghanistan will be significant.
    Director Panetta, do you agree that the U.S. troop 
reductions from Afghanistan beginning in July should be 
significant?
    Mr. Panetta. I agree with the President's statement.
    Chairman Levin. There are approximately 100,000 more Afghan 
soldiers and police today than there were in December 2009. The 
NATO training mission in Afghanistan is ahead of schedule in 
meeting the target of 305,000 Afghan security forces by this 
fall.
    In addition, a new target of 352,000 Afghan security forces 
by 2012 has been set to ensure that these forces have the 
specialized skills needed to sustain these units over the long 
term, and I very much support that decision. Do you agree, 
Director Panetta, that training and partnering with the Afghan 
army and police and getting those forces in the lead on 
operations is key to the success of our counterinsurgency 
strategy in Afghanistan?
    Mr. Panetta. Yes, I do.
    Chairman Levin. Now, Pakistani leaders deny being aware of 
the presence of Osama bin Laden in Abbottabad. It is 
counterintuitive to believe that none of their leaders knew of 
it. But nonetheless, that is not my question.
    Pakistan's leaders are well aware and acknowledge their 
awareness of the sanctuaries in Pakistan by the Haqqani network 
and the Afghan Taliban down in Quetta. Now those people are 
attacking our troops, Afghan troops, coalition troops across 
the border in Afghanistan and then go back to their sanctuary 
in Pakistan.
    A recent Defense Department report called the extremist 
Haqqani network ``the most significant threat in eastern 
Afghanistan,'' and yet the Haqqanis continue to enjoy open safe 
haven across the border in Pakistan. I think this is a totally 
unacceptable situation. I am wondering if you agree, and if so, 
what should be done about it?
    Mr. Panetta. Senator, I share your concern with regards to 
the safe haven in Pakistan, particularly as it relates to 
groups like the Haqqanis. I have strongly urged those in 
Pakistan to take steps to do whatever they can to prevent these 
kind of cross-border attacks and to prevent the safe havens 
that do exist on the Pakistani side of the border.
    This is a difficult challenge. The relationship with 
Pakistan is at the same time one of the most critical and yet 
one of the most complicated and frustrating relationships that 
we have. It is extremely critical in that we are conducting a 
war against our primary enemy in the FATA in their country.
    It is critical because supply lines, vital supply lines go 
through their country. It is critical because they are a 
nuclear power, and there is a danger that those nukes could 
wind up in the wrong hands.
    At the same time, it is very complicated, complicated by 
the fact that they maintain relationships with certain 
terrorist groups, that they continue to not take aggressive 
action with regards to these safe havens, and that their 
concern about the sovereignty results in criticism of the 
United States when, in fact, my view is that the terrorists in 
their country are probably the greatest threat to their 
sovereignty.
    Having said all of that, we have to maintain the 
relationship. We have to do everything we can to try to 
strengthen that relationship so that both of us can work to 
defend both of our countries.
    Chairman Levin. Director Panetta, as I mentioned in my 
opening statement, the President has called for $400 billion in 
reductions to national security spending over the next 12 
years. Now do you have any understanding of the proposed 
breakdown of that $400 billion as to how much he is proposing 
for reductions in Pentagon spending, how much in intelligence 
spending, the intelligence organizations, and how much he is 
proposing to reduce in the Homeland Security Department?
    Mr. Panetta. No, I do not.
    Chairman Levin. Can you try to find that out for us? 
Because we need to find that out, and give us an answer for the 
record.
    Mr. Panetta. I will certainly ask whether or not that 
decision has been made.
    [The information referred to follows:]

    The administration has not made final decisions concerning the 
specific details on the $400 billion reduction.

    Chairman Levin. Do you know whether we are going to receive 
a budget amendment for the fiscal year 2012 DOD budget?
    Mr. Panetta. I do not know the answer to that.
    Chairman Levin. All right. On the question of torture, you, 
in your answers to the committee's prehearing policy questions, 
said the following, ``I will ensure that all interrogations 
conducted by DOD personnel are conducted consistent with the 
Army Field Manual and in accord with the Geneva Conventions.''
    My question, is waterboarding consistent with the Army 
Field Manual and the Geneva Conventions?
    Mr. Panetta. I have taken the same position as the 
President of the United States. I believe that waterboarding 
crosses the line, the use of that tactic with regards to 
interrogations. The President outlawed the use of that, plus 
other enhanced interrogation techniques, in an Executive order 
that he issued when he first came into the presidency.
    Chairman Levin. I need to switch gears here on you a lot 
because time requires that we do that. Senator Webb and I 
recently went to Okinawa, Guam, and Senator Webb was in Korea 
before. Senator McCain obviously has great personal experience 
in this area as well. Senator McCain, Senator Webb, and I 
proposed changes to basing plans on Okinawa and Guam. We urged 
a review of the plans in Korea because we believe that the 
current plans are unrealistic, unworkable, and unaffordable.
    Then, independently, the Government Accountability Office 
(GAO) concluded that the cost of these military realignments 
are higher than expected and in many cases largely unknown, a 
highly critical GAO report of this direction that we are 
currently moving. I am wondering whether or not you are 
familiar with this issue. If confirmed, in any event, whether 
you are familiar with these issues or not in those three 
places, will you agree to review this matter and work with us 
to find a solution that helps advance our strategic objectives 
in the region.
    Because we have strategic objectives in the region, but 
they are currently unaffordable. They are unknown in terms of 
cost. Would you be willing to review this matter and to work 
with us?
    Mr. Panetta. Yes, I will, Senator. You discussed this with 
me when I met with you, and also Senator Webb discussed his 
concerns about that area. I agree with you that it is a very 
important strategic area for the United States. We do have to 
maintain a presence there.
    But there are a lot of issues to be resolved and worked on, 
and I look forward to working with you, Senator McCain, Senator 
Webb, and others to try to determine what the best and most 
cost-effective approach would be.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    Thank you, Director Panetta.
    What is your assessment of the battlefield situation in 
Afghanistan since we inaugurated the surge?
    Mr. Panetta. I think the assessment is that we have made 
progress with regards to security in that country. Albeit 
fragile and reversible, I nevertheless believe that progress 
has been made to try to advance security.
    We also have made good progress in training the forces 
there in Afghanistan, both their police and military force. I 
think the area where, frankly, greater progress needs to be 
made is on the governance side, to try to ensure that they 
improve their governance so that, ultimately, they can take 
responsibility for that country.
    Senator McCain. When you point out that it is fragile and 
reversible, I think that is absolutely accurate. So you would 
agree with Secretary Gates' repeated statements that 
withdrawals in July should be modest?
    Mr. Panetta. I agree that they should be conditions based, 
and I am going to leave it up to Secretary Gates, General 
Petraeus, and the President to decide what that number should 
be.
    Senator McCain. If you are the Secretary of Defense when 
that decision is made, obviously, you will have significant 
influence. You just came from a position where you have a very 
good assessment of the military situation. I think it is not 
inappropriate for you to answer when I ask if you agree with 
Secretary Gates' assessment that the withdrawal should be 
modest.
    Mr. Panetta. Senator, if I am confirmed, I will have to, 
obviously, arrive at a decision myself that I will have to 
ultimately present to the President. But I am not in that 
position now, and that decision really does rest with General 
Petraeus, Secretary Gates, and the President.
    Obviously, I have tremendous admiration for Secretary 
Gates. He and I pretty much walk hand-in-hand on these issues. 
But with regards to specific numbers, I just am not going to--
--
    Senator McCain. I wasn't asking for specific numbers. On 
the subject of Iraq, if the Iraqi Government and all its 
elements agree that there should be a residual U.S. military 
presence in Iraq, particularly in three areas--air defenses, 
intelligence capability, and security in the areas around 
Kirkuk and that part of Iraq where there has been significant 
tensions--would you agree that that would be a wise thing for 
us to do?
    Mr. Panetta. I believe that if Prime Minister Maliki and 
the Iraqi Government requests that we maintain a presence 
there, that ought to be seriously considered by the President.
    Senator McCain. Do you think it would be in our interest to 
do that, given the situation?
    Mr. Panetta. Senator, I have to tell you, there are 1,000 
al Qaeda that are still in Iraq. We saw the attack that was 
made just the other day. It, too, continues to be a fragile 
situation, and I believe that we should take whatever steps are 
necessary to make sure that we protect whatever progress we 
have made there.
    Senator McCain. Do you know of anyone of authority either 
in Congress or in the administration who believes that we 
should send ground troops into Libya?
    Mr. Panetta. I haven't met anybody yet who supports that. 
[Laughter.]
    Senator McCain. I haven't either. Nor do I. In fact, I 
think it would be a great mistake.
    Do you believe that it is a proper role of Congress to 
restrict the powers of the President of the United States to 
act? In other words, you and I were around when there was a 
vote for cutoff of funds for Vietnam. Whether that was right or 
wrong, that was the appropriate role of Congress.
    Does it worry you if Congress begins to tell the Commander 
in Chief as to exactly what he can or cannot do, what the 
President can or cannot do in any conflict?
    Mr. Panetta. Senator, I believe very strongly that the 
President has the constitutional power as Commander in Chief to 
take steps that he believes are necessary to protect this 
country and protect our national interests. Obviously, I think 
it is important for Presidents to consult, and to have the 
advice of Congress. But in the end, I believe he has the 
constitutional power to do what he has to do to protect this 
country.
    Senator McCain. I agree. In 2007, the last time we went 
through a very serious crisis, it was concerning whether we 
should withdraw from Iraq or not, and I see some parallels as 
the rising and understandable war-weariness of the American 
people continues to be manifested.
    One of the things that we did at that time was set up some 
benchmarks that we expected to be met by both the Iraqis and 
the United States. As I recall, there was 13 or a number of 
those. Over time, most of those benchmarks were met.
    Don't you think it would be appropriate for us to do the 
same thing as far as Afghanistan is concerned? We can measure 
progress by certain metrics, and I think it would be important 
in order to gain or keep the confidence of the American people 
that we should set up some benchmarks for progress, both in 
Afghanistan and as far as Pakistan is concerned, since we are 
sending billions of dollars of taxpayers' money to Pakistan as 
well.
    Mr. Panetta. Senator, I think we all know what the 
fundamental goal here is to try to develop a stable enough 
Afghanistan that it will never again become a safe haven for al 
Qaeda or----
    Senator McCain. My specific question is----
    Mr. Panetta.--for other terrorists.
    Senator McCain.--would you agree----
    Mr. Panetta. But with regards to achieving that goal, I 
think that working with the administration, working with the 
President, working with the Secretary of Defense, establishing 
some of those areas where we need to make progress and 
identifying those, I think that is something that would be 
worth pursuing.
    Senator McCain. Thank you. I thank you for your service, 
and I thank you for your willingness to continue to serve.
    My time has expired. But one of the biggest problems that I 
see--and I apologize, Mr. Chairman--but is this whole issue of 
acquisition. We have terrible out-of-control costs for 
literally every weapon system that we have acquired in the last 
10 years that I know of.
    I believe you have a good team there in the Pentagon. I 
think that Mr. Carter is doing a good job. But we are going to 
have to get our arms around this. We cannot afford aircraft 
that double and triple the original estimated costs and don't 
meet the timelines that are set up. The F-35 is just the most 
outstanding example.
    I know you will make this as one of your highest 
priorities. It is simply not affordable for us to continue 
business as usual the way we acquire weapons today. It may 
require some really fundamental changes in addition to the 
legislation that we have already passed to try to address this 
issue.
    I thank you, Mr. Chairman.
    I thank you, sir.
    Mr. Panetta. Thank you, Senator. I agree with you fully on 
that issue.
    Chairman Levin. Thank you. He speaks, I think, for our 
entire committee in saying that, and I think it is also clear 
you have the background to really do something about it and to 
dig into it.
    Thank you very much, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Director Panetta, thank you for answering the call to serve 
your country again. I have the greatest confidence in your 
ability and your principles.
    I love the quote from your father. Our fathers must have 
come out of the same cloth, which is to value the freedom that 
America provides is our unique and distinguishing contribution 
to governance, but to understand that without security, there 
is no freedom. I can't think of anything I would rather hear 
from a nominee for Secretary of Defense than that.
    I want to begin with a few quick questions about Iran. Do 
you agree that the Islamic Republic of Iran is working very 
hard to develop a nuclear weapons capability?
    Mr. Panetta. Our concern with Iran is that they continue to 
try to develop some kind of nuclear capability. As to whether 
or not they have made certain decisions as to how far they 
should go, those are questions that I would probably have to 
address in another forum. But there is no question that they 
continue to work to try to develop some kind of nuclear 
capability.
    Senator Lieberman. Right. Also, to the best of your 
knowledge, is the Islamic Republic of Iran working to develop 
increased capacities in intercontinental ballistic missile 
systems to deliver nuclear or other weapons?
    Mr. Panetta. That is correct.
    Senator Lieberman. As I am sure you know, there has been a 
lot of both diplomatic and economic sanctions work being done 
to attempt to discourage Iran's nuclear ambitions and really to 
end them. However, as President Obama has said, all options 
have to remain on the table.
    I wanted to ask you whether, as Secretary of Defense, you 
will consider it to be one of your responsibilities to have 
credible military plans to strike and destroy Iran's nuclear 
facilities if the President, as Commander in Chief, decides 
that it is necessary to use that option?
    Mr. Panetta. I think in line with the President's statement 
that we should keep all options on the table, and that would 
obviously require appropriate planning.
    Senator Lieberman. Thank you.
    Let me go to Afghanistan and see if I can approach it this 
way. I thought the President made not only a correct, but a 
courageous decision in 2009 in deciding to raise the number of 
our forces in Afghanistan by 30,000 plus, a so-called 
Afghanistan surge. At the time, the statement was made that we 
would begin to draw those troops down around July of this year, 
2011.
    There was a lot of anxiety in the region, particularly in 
Afghanistan and Pakistan and beyond, about whether that was the 
beginning of a kind of early withdrawal and, again, a retreat 
from the region. Discussions were had, particularly between us 
and the Afghans, and President Obama settled with President 
Karzai, as you well know, on a plan that will begin the 
transition around July of this year. But the goal is to remove 
effectively all of our forces, unless there is a mutual 
agreement to the contrary before then, by the end of 2014.
    You have said today and in the answers to the questions we 
submitted earlier that you thought we were making measurable 
progress. The American military are making measurable progress 
in Afghanistan, but that the progress was reversible. Rather 
than asking you to adopt an adjective that someone else has put 
on it, is it fair to say that the standard you would apply to 
the drawdown of American forces that would begin in July of 
this year, is it that it not be so great as to risk the gains 
we have made, which, as you have said, are reversible?
    Mr. Panetta. There is no question we ought not to take any 
steps that risks the gains that have been made, and I have 
great confidence, frankly, that General Petraeus and Secretary 
Gates and the President will make the right decision in a 
transition that has to take place going towards 2014.
    Senator Lieberman. Is it fair to say that if you are 
confirmed as Secretary of Defense, that the goal that you see 
is to turn responsibility for security of Afghanistan over to 
the Afghans at the end of 2014 and not to jeopardize our 
capacity to do that before then?
    Mr. Panetta. No, that is absolutely correct. At the Lisbon 
conference, 48 nations plus President Karzai made the decision 
that there would be a transition going towards 2014, and it 
would be then that, hopefully, we would be able to transfer 
responsibility. We ought to do nothing that jeopardizes that 
path.
    Senator Lieberman. I appreciate that. Let me just briefly 
read you what Secretary Gates said this weekend in Afghanistan. 
``I think that once you have committed, that success of the 
mission should override everything else because the most costly 
thing of all would be to fail.''
    Do you agree with that?
    Mr. Panetta. Absolutely.
    Senator Lieberman. I appreciate your answers to those 
questions.
    Let me move to another part of the world. I think at the 
end of the last century, if you asked most people up here and 
in the Defense Department, State Department, et cetera, CIA, 
what would be our focus in this century, they probably would 
have said that the Asia-Pacific region would be the strategic 
center of gravity of the 21st century.
    We were obviously and necessarily distracted by the attack 
on us on September 11, and I think we have responded with 
remarkable courage and effectiveness. But I think that the 
Asia-Pacific remains the strategic center of gravity for the 
21st century.
    As I think you know and those of us who have been there 
recently have found, there is an anxiety among our friends in 
Asia about, one, China's growing military capabilities and, 
two, about America's staying power and commitment to the 
region. I wanted to give you an opportunity to speak to that 
anxiety that, if confirmed as Secretary of Defense, 
notwithstanding the budget pressures on the U.S. Government, 
would our strategic involvement in the Asia-Pacific region, in 
your opinion, continue to be a national security priority?
    Mr. Panetta. Absolutely. I think that region is very 
important to us from a strategic point of view. We have to 
maintain a presence in the Pacific arena. I think we also, in 
line with that, have to maintain a relationship with China. 
Building that kind of relationship for the 21st century, I 
think, is extremely important.
    Obviously, there are concerns, concerns about some of the 
things they are doing in modernizing their military. At the 
same time, I think we have to be able to work with them in 
terms of scale and transparency so that we are working together 
and not in opposition to one another in order to make sure that 
we protect the security of that region.
    Senator Lieberman. But in your watch as Secretary of 
Defense, you certainly don't anticipate any withdrawal or 
retreat of America's commitment to the Asia-Pacific region and 
our allies there?
    Mr. Panetta. Not at all. Not at all.
    Senator Lieberman. Thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Director Panetta, thanks for your willingness to continue 
to exhibit great public service.
    As you and I have had the privilege of working together for 
many years now since I was a freshman member of the House, and 
you were a member of the Clinton administration. We don't need 
to talk about how many years that has been. But I respect your 
service and value our friendship.
    I would just say that I know you will be the first to 
credit the many hard-working and very professional men and 
women in the intelligence and military community that led to 
the successful takedown of bin Laden, and you would be right to 
do that. But the fact is without strong leadership at the top, 
that mission would not have been successful. I give a lot of 
the credit for that mission to you, and it is well deserved.
    You and I had the opportunity to talk about the issue of 
rising healthcare costs in the DOD budget when we visited a 
couple of weeks ago. I noticed you had several questions on 
that issue in your advance policy questions, and I appreciate 
your responses.
    I don't have a question on this. But as the chairman said 
earlier, you are going to have a very difficult job when it 
comes to trying to find savings and become more efficient at 
DOD. There is no bigger expense, at least from the standpoint 
of increasing annually, than the healthcare costs.
    I just want to reemphasize the fact that this is an 
extremely important issue, and we need to get our arms around 
it. I look forward to working with you. I encourage you to 
continue to think creatively about how we can bring these costs 
down without negatively impacting the quality of service to 
those who depend on that system.
    I want to go back to the line that Senator McCain was 
addressing on Afghanistan. Regarding the troop withdrawals, I 
think it is clear from an operational perspective that the 
withdrawal of U.S. troops at this point makes no sense. It may 
make sense from a domestic political perspective. It may make 
some level of sense in terms of waking up the Afghans to the 
fact that we are not going to be there forever, and they need 
to step up to the plate.
    But I am concerned that a significant withdrawal of U.S. 
forces will reverse the progress that we have made in 
Afghanistan and that the Afghans have made. I am glad to see 
you say in your responses to questions that you ``support a 
responsible, conditions-based withdrawal''. However, I would 
prefer there to be no withdrawal until it is clear that the 
gains that we have made will not be reversed.
    My question for you is, as we withdraw troops from 
Afghanistan, if it becomes clear from an operational 
perspective that the withdrawal is negatively affecting 
progress and stability, will you advise the President that the 
withdrawal should be stopped and that, if necessary, additional 
U.S. forces be sent back to Afghanistan?
    Mr. Panetta. As I have said and as the President has said, 
and the Secretary has emphasized, this has to be a conditions-
based withdrawal. That means you look at the conditions on the 
ground as it proceeds, obviously, we need to do everything we 
can to try to stay, hopefully, on target with regards to the 
2014 date.
    But again, it is conditions based, and I think based on 
what changes take place, then obviously the President and the 
Secretary would have to make adjustments.
    Senator Chambliss. I would hope that from a conditions-
based standpoint, Leon, that you would give strong 
consideration to the safety and security of our soldiers. I 
know they are of number one importance to you.
    If withdrawal of troops puts our men and women in greater 
harm's way, I hope that we would make it conditions based and 
that we would cease the withdrawal. I hope that would be your 
recommendation to the President.
    Mr. Panetta. Yes.
    Senator Chambliss. Another issue that I want to bring up 
with you that we have discussed is the issue of tactical 
aircraft and fifth-generation fighters. Let me just say that 
several years ago, Secretary Gates made a push to place the 
future of tactical aviation on basically one weapon system, and 
that is the F-35.
    He argued that it had stealth and other advanced 
capabilities that made it the airplane of the future. However, 
at a recent hearing, last month Secretary Carter indicated, in 
fact, that DOD has taken money out of the F-35 program to buy 
fourth-generation fighters.
    Not only are these fourth-generation fighters costing 
billions of dollars, but they are going to be in the inventory 
for probably 20, 30 years, and we are going to be paying to 
maintain them at even a greater cost. Yet their utility is 
greatly limited against any kind of modern threat, and in my 
view, this does not seem to be a very good way to expend 
taxpayer dollars.
    What is your perspective on this issue? If confirmed, will 
you absolutely be committed to preserving U.S. supremacy and 
air dominance and ensuring our resources are spent most wisely 
towards that end?
    Mr. Panetta. Senator, obviously, I want to make sure that 
we have the very best in terms of our fighter planes, and I 
know the F-35 is a plane that is being developed as the next-
generation fighter. But I also know that there are extensive 
costs associated with how that plane is being developed, and I 
think we have to watch it very carefully.
    I want to assure you that one of my responsibilities, in 
line with what Senator McCain said, is to take a very hard look 
at all weapon systems to make sure that they are cost effective 
and that they are, in the end, providing the very best 
equipment our forces need.
    Senator Chambliss. What really concerns me about where we 
are with that program is exactly what Senator McCain alluded 
to. That is that we just seem to be out of control and that we 
keep moving the goalpost with contractors and then blaming 
contractors for an increase in cost, when, frankly, part of it 
is due to our inefficient management of the systems.
    If we are going to spend the kind of money that we are 
committed to spend on that fifth-generation fighter, because 
that is where we are headed, and we all know that. We have to 
have that airplane in the inventory. The decisions that are 
going to be made by you, as Secretary of Defense, relative to 
procurement, to acquisition, as well as to the testing of that 
airplane, are going to be critical.
    You bring a wealth of knowledge from that perspective from 
your years at OMB, as well as where you are today. Again, we 
look forward to dialoguing with you, between you and this 
committee on that issue as well as our other acquisition issues 
that are going to be before you.
    Let me ask you one other matter relative to Libya. I notice 
that you agree that the Gaddafi regime must go. How are we 
going to do it? Based on what we are doing today, from our 
participation in the NATO operation, how are we going to make 
that happen?
    Mr. Panetta. That is, as the President has said, the 
objective. It has to be done by a number of means.
    Number one, we are bringing strong economic sanctions 
against them. Number two, we are bringing strong diplomatic 
pressure against them. We have implemented embargoes and, more 
importantly, the work that NATO is doing, pursuant to the 
United Nations (U.N.) resolution.
    The NATO forces that are there are bringing tremendous 
pressure, I believe, on them, not only fighting obviously to 
protect civilians, but to implement the no-fly zone. But in 
addition to that, target the command and control elements of 
the regime. I think all of those factors have to continue in 
order to put pressure on Gaddafi.
    Frankly, I think there are gains that have been made. We 
have seen the regime weakened significantly. We have seen the 
opposition make gains both in the east and the west. I think 
there are some signs that if we continue the pressure, if we 
stick with it, that ultimately Gaddafi will step down.
    Senator Chambliss. Again, thanks for your service, and I 
look forward to continuing to work with you.
    Chairman Levin. Thank you very much, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Director, for your extraordinary public service, 
particularly in the last few months for your decisive and 
courageous advice to the President, which led to the successful 
raid against bin Laden. It would not have been as successful or 
as effective without your participation.
    Thank you personally for your friendship over many years.
    Let me return to the topic of Afghanistan. We are looking 
at a decision shortly that will be based on conditions on the 
ground. But it strikes me, and I think implicit in what you 
said in your testimony, that those conditions on the ground 
might be more relevant vis-a-vis Pakistan than Afghanistan.
    That, in fact, as long as the Government of Pakistan at 
least appears to see some of these terrorist groups on their 
soil as strategic assets and not liabilities, that our 
operations in Afghanistan are going to be very difficult.
    Going to the real conditions on the ground, your comment on 
whether those conditions are really more about Pakistan than 
Afghanistan, and whether our effort, our strategy, our focus 
has to be there as much as Afghanistan. I would also include in 
this context some type of regional dialogue, including 
Pakistan, Afghanistan, and India. Your comments, Mr. Director?
    Mr. Panetta. I would agree with that, Senator. I think it 
is pretty clear we can't succeed in Afghanistan if we are not 
succeeding in Pakistan in terms of controlling the safe havens 
and the cross-border operations. We have to work at both in 
order to ensure that we are able to stay on path with what we 
would like to achieve in Afghanistan.
    In addition to that, I agree with you this is a regional 
issue. To the extent that the countries in that region can work 
together and relate to each other instead of being suspicious 
of each other and creating the kind of dynamic that, frankly, 
has not been very helpful, I think it would be in the interest 
of peace in that region if we could get all three to continue 
to work together to advance the same goals.
    Senator Reed. One of the points that I believe your 
predecessor made--I, too, will join my colleagues in commending 
him for exemplary service. Indeed, one of the challenges you 
have is following an extraordinarily talented, successful, and 
decent human being. You will do it, I know. But you have a 
challenge.
    Secretary Gates pointed out how important non-DOD 
operations were at the Department of State, and agricultural 
programs at the Department of Agriculture. Now we are getting 
also into the spectrum of these violent climate episodes 
throughout the globe of scientists in the National Oceanic and 
Atmospheric Administration and others. Yet there is a real 
danger here that those budgets might suffer.
    In terms of Afghanistan, my colleagues on the Senate 
Foreign Relations Committee yesterday released a report 
criticizing the build stage in the operation. Can you comment 
upon that partnership and how critical it is?
    Again, when we look ahead at the conditions on the ground, 
we could be successful interdicting terrorist groups, seizing 
caches of weapons, even interdicting transmissions from 
Pakistan. But if there is no political capacity or governmental 
capacity, healthcare, education, or anything, we are going to 
still have a population that is disgruntled and probably 
destructive towards us.
    Mr. Panetta. Senator, I agree with what you have said. It 
has to be a whole-of-government approach as we deal with these 
issues. Clearly, the State Department plays a very important 
role in providing assistance to individuals to ensure that an 
area remains secure: the education area. The Justice Department 
provides assistance. The area of agriculture also provides 
important assistance.
    I know DOD is our primary military weapon in terms of 
securing areas. But if we don't follow it up with these other 
important assets, we will never be able to fully secure these 
countries.
    Senator Reed. Let me change topics for a moment. It strikes 
me that I am old enough to remember when there were three 
dimensions of conflict--air, land, and sea. I did some land 
stuff and technically air because I jumped out of airplanes.
    But there is a whole new dimension, cyber. I don't think we 
know enough yet to be fully prepared, fully conversant. But can 
you comment briefly on the strategy that you will try to 
develop? I presume that strategy will involve some deterrence, 
preemption, offense, and defense. As was just indicated, there 
is a policy now within the context of the rules of war, what 
would constitute some type of casus belli?
    I think you are stepping in at a critical moment where we 
are just beginning to develop a strategy for a new dimension of 
warfare that we have never really confronted yet, and your 
leadership will be critical.
    Mr. Panetta. There is no question that the whole arena of 
cyber attacks, developing technologies in the information area 
represent potential battlefronts for the future. I have often 
said that there is a strong likelihood that the next Pearl 
Harbor that we confront could very well be a cyber attack that 
cripples our power systems, our grid, our security systems, our 
financial systems, and our governmental systems.
    This is a real possibility in today's world. As a result, I 
think we have to aggressively be able to counter that. It is 
going to take both defensive measures as well as aggressive 
measures to deal with it. But most importantly, there has to be 
a comprehensive approach in Government to make sure that those 
attacks don't take place.
    I have a huge responsibility, if confirmed in this new 
position, in dealing with the cyber area through the National 
Security Agency (NSA) and others. My goal would be to work very 
closely with them and with others to develop not only the 
capability, but also the law that I think we need to have in 
order to determine how we approach this challenge in the 
future.
    Senator Reed. Just a final topic, and really echoing what 
Senator McCain said, Senator Chambliss, and others, is that 
there is an acquisition bow wave coming, as you recapitalize 
and innovate our military forces, and that has been pushed off 
a bit. It has been deferred a bit, but it is coming.
    One of the aspects, as Senator Chambliss pointed out, is 
that it is not simply the sheer number of systems that we have 
to buy--land, sea, air, and others--it is the price tag on each 
one of these systems. I know Secretary Carter has been working 
very hard to make affordability part of the design. But all of 
those efforts are going to be absolutely necessary because 
there will be no room within even a generous budget to do 
everything that has to be done unless we make significant 
progress in that area. Just your comments again, Mr. Director.
    Mr. Panetta. In the briefings that I have had, it is 
obvious that this is an area that we have to pay a lot of 
attention to because of the efficiencies, because of 
competition, because of the nature of expanding contracts that 
have taken place there.
    We have seen these weapon systems grow in cost. It takes an 
extraordinary amount of time to field a system--from the 
beginning of moving that kind of weapon system to the time it 
is finally developed, finally deployed, it almost becomes 
outdated. We have to improve that process.
    I know Congress has taken steps in that arena, but I look 
forward to working with you and with the members of this 
committee to take greater steps to make sure we are looking at 
every possible efficiency in the procurement arena in order not 
only to save dollars, but to make sure we are getting better 
equipment as a result of it.
    Senator Reed. Thank you, Mr. Director.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Good to see you again, sir. I appreciate you taking time 
with me yesterday, I look forward to voting to confirm you.
    Mr. Chairman, thank you for holding this hearing.
    I echo a lot of the same thoughts that my colleagues do 
regarding the cross-border operations, the tremendous amount of 
aid we give to Pakistan, $4 billion, I think, give or take. I 
have deep concerns that as we try to move forward with 
completing our mission and bringing our men and women home from 
Afghanistan that we are having these areas where you have the 
safe havens, yet we are giving them billions of dollars in aid.
    It is either you are with us or you are not? Either you are 
helping or you are not. Is there an effort and/or what is your 
position with regard to carrying that message that people like 
me and others in Congress are getting a little bit frustrated 
with that duplicity?
    Mr. Panetta. Senator, I want to assure you that Secretary 
Clinton; Chairman Mike Mullen, who meets with them regularly; 
myself; my deputy, who was just there; have all made the same 
point that we need to have their cooperation, we need to have 
their partnership in confronting what, frankly, is a common 
enemy here.
    Terrorism just isn't our problem. It is their problem. They 
are the subject of attacks every day from terrorists. It is in 
their interest to try to take greater action to control 
terrorism within their borders, and I think they have to 
recognize that we expect in a relationship and a partnership 
that it is a two-way street, that it isn't just one way. It has 
to be two ways if we are going to protect both of our 
countries.
    Senator Brown. Right. I mean, the fact that bin Laden was 
there. Clearly, if they didn't know he was there then--I, quite 
frankly, don't believe them. But I am hopeful that message 
continues very strongly. I know when I went over there, I 
conveyed that same message as well.
    If you are walking down the hallway and a media group grabs 
you and says, ``Sir, what is the mission in Afghanistan?'' What 
is your response? When I go back home, what should I convey to 
the people back in Massachusetts as to now that, obviously, we 
have made progress there? We have done A, B, C, and D. What 
should I convey and what do you convey, sir, in your everyday 
conversations, what is the mission in Afghanistan right now?
    Mr. Panetta. The fundamental mission in Afghanistan is to 
provide sufficient stability so that country never again 
becomes a safe haven for al Qaeda or al Qaeda's militant 
allies. I think that is the fundamental mission.
    Senator Brown. Is it your plan to achieve that mission by 
setting benchmarks that will hopefully be attained so we can 
step back and bring our men and women home? Let me ask you that 
first.
    Mr. Panetta. I think the President has made clear that 
there are goals that we are continuing to work on. We need to 
weaken the Taliban. We need to develop the force structure in 
Afghanistan with the police and the army so they can assume 
these responsibilities, and we need to develop the governance 
system there so that it can provide greater security for the 
future. Each of these areas has to be focused on in order to 
arrive at our goal.
    Senator Brown. Is it your opinion that there is a will in 
Afghanistan with the people and the government folks there to 
do that, to ultimately be self-sufficient?
    Mr. Panetta. I think there is. I think in the discussions I 
have had there, I think they really do want their country to 
succeed. It is not always easy. This is a tribal society. It is 
not a simple thing to be able to work together.
    Senator Brown. You have the tribal society, then you have 
the central government. There is very little interaction.
    Mr. Panetta. It is not easy. It is difficult. Yet, I think 
they understand that, ultimately, this is their country, and 
they are going to have to provide the security in their 
country.
    Senator Brown. I am also deeply concerned and I am hopeful 
that you will look at it, we keep hearing reports that monies 
that we are providing are going ultimately to terrorists and 
ultimately being used against our men and women that are 
serving. Is that something you have a comment on?
    Mr. Panetta. I think we have to continually oversee that 
and make certain that doesn't happen. I don't deny that there 
has been corruption in that country, and I think we have to 
ensure that one of their responsibilities as a government is to 
make sure that doesn't happen.
    Senator Brown. Just to shift gears a little bit, what is 
happening in Egypt and that region of the world, obviously, 
people are hopeful that they are having an opportunity to share 
in the freedoms and privileges that we and other countries like 
us have. Yet there is also deep concern about voids that may be 
left after these transitional periods.
    For example, in Egypt, we have given them billions of 
dollars, and they have purchased billions of dollars of 
military equipment and the like. They have upcoming elections 
at some point. Depending on who gets in power, they still have 
the equipment. They still are receiving aid.
    I am concerned about Israel and its safety and security. I 
am concerned about other parts of that region. What are your 
thoughts on the relationship with Israel, the transition we are 
seeing over in the Middle East?
    Mr. Panetta. We will and have to continue to maintain a 
strong relationship with Israel and that part of the world, and 
we have to reach out to other nations in that part of the world 
as well if we are going to ultimately preserve peace in that 
region.
    This is an area that is in great turmoil now. I think you 
have just commented on that. A lot of these countries are going 
through turmoil--Tunisia, Egypt, Libya, Bahrain, Yemen. There 
are a number of countries that are dealing with uncertainty.
    I think the United States has to, on a case-by-case basis, 
work with each of these countries to ensure that they reduce 
the violence, to ensure that they are recognizing some degree 
of universal rights, and that they are implementing economic 
and political reform. That is not going to be easy. There are 
tremendous changes going on, but we have to play a role in what 
is developing in the so-called ``Arab spring''.
    I think the President spoke to that. The fact is that if we 
don't, there are other countries in that region like Iran that 
are going to try to influence what takes place. We can't afford 
for that to happen.
    Senator Brown. Thank you, sir. Good luck.
    Chairman Levin. Thank you, Senator Brown.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say aloha and welcome to Director Panetta, who is 
a dear friend and a former colleague. We have so many things 
that we can talk about, but I want to tell you, Director 
Panetta, that I am really impressed with your opening 
statement. What else can I say, as we consider a person who was 
nominated by the President to be Secretary of Defense who will 
be a tireless advocate of our military and will bring about 
support and sustain them?
    For me, this is great and that this will be in your 
thoughts and prayers and supported by your dad's principles of 
having a free country and a country that is secure and that you 
would continue to bring strong discipline and national defense 
for our country. With all of this, I want to wish you well and 
tell you that you certainly have my support.
    As we discussed, you will face significant challenges, if 
confirmed. The men and women of the Armed Forces have served 
with honor and resolve in two major conflicts that have taken a 
tremendous toll on our Armed Forces. We must do all we can to 
care for them. Fulfilling this sacred obligation is dependent 
on DOD and the Department of Veterans Affairs (VA) cooperation.
    I am glad that you stated in your advance policy questions 
that you would ensure that DOD continues to work closely with 
the VA to support servicemembers and their families, and we 
talked about working on a seamless transition between DOD and 
the VA. With this, as you carry on into the position of 
Secretary, you certainly have my support.
    Director Panetta, if confirmed, what will be your top 
priorities as you look to care for men and women in uniform and 
their families?
    Mr. Panetta. Senator, obviously, my first and foremost 
priority is to protect this country, but I can't do it unless 
we have good fighting men and women who are willing to put 
their lives on the line in order to defend this country. I 
think we owe it to them as a result of that, and we certainly 
owe it to their families, to make sure that we are doing 
everything possible to meet their needs.
    I think, obviously, providing the kind of healthcare, 
providing the benefits, providing the counseling that is 
necessary, particularly for wounded warriors, making sure that 
they can transition to the VA in a seamless way, all of these 
are areas that I have to pay attention to because I have seen 
it firsthand that these kids are out there. They are, indeed, 
putting their lives on the line, and we have asked them to go 
there time and time again.
    We have to make sure that they know that they are fully 
supported in this effort. It is going to be my job, if 
confirmed as Secretary of Defense, to ensure that we are 
providing those benefits. Obviously, I want to work with people 
like yourselves that have been working at this for a long time 
to make sure that we are covering all of their needs.
    Senator Akaka. Thank you.
    I am impressed as you did tell us just about five steps of 
what you are planning to do and have social reforms. I thought 
it was unique where you want the Service Chiefs and the 
Secretaries to work together and share their concerns as well 
and that you want to work on the Pentagon management, which I 
think is so important as well. This is also important, to 
regard Congress as a partner and to work with Congress as well, 
and then to deal with the challenge of nations that are rising 
and changing, as you mentioned.
    Director Panetta, the Chief Financial Officers Act of 1990 
required DOD to prepare financial statements, which were found 
ultimately unreliable. In 2010, the National Defense 
Authorization Act requires the Department to provide auditable 
financial statements by 2017. I believe in accountability, and 
I know you do, too. We owe the American people complete and 
accurate financial information from the Pentagon.
    Additionally, accurate books would allow Pentagon leaders 
to make better-informed decisions in a resource-limited 
environment. If confirmed, what will you do to ensure that the 
Department meets these requirements?
    Mr. Panetta. Senator, I was concerned in finding out that 
the Department would not be able to achieve full auditability 
until something like 2017. I understand how areas of the budget 
developed, the American people should know that, obviously, 
there is auditing that does go on within each of these areas. 
But as a department, we should be able to audit that 
department.
    If I am confirmed, one of the first things I am going to do 
is to try to see if we can't take steps to try to improve on 
that timetable so that we can say to the American taxpayer that 
what we are spending on national defense is being fully 
audited.
    Senator Akaka. Director Panetta, DOD is one of the few 
departments that has recognized the importance of developing 
and maintaining its language and cultural awareness 
capabilities. A number of steps have been taken to improve 
these skills within the Department and across the country, such 
as leading the National Language Service Corps and coordinating 
its activities with other Federal agencies.
    What are your thoughts on the importance of cultural and 
foreign language capabilities within DOD?
    Mr. Panetta. Senator, I am a big believer in language 
training and getting our people equipped with the ability not 
only to speak the language, but to understand the culture of 
the countries that we are dealing with. I say that not only 
because I think it is good for each individual to be able to 
have that capability, but I have to tell you it is important to 
our national defense to have that capability.
    At the CIA, I have developed a requirement for analysts, 
for those that are operations officers to have a language 
capability. It makes them not only a better individual, it 
makes them a better intelligence officer to have that 
capability.
    I think at DOD, I think we need to also encourage greater 
language training so that they understand not only the 
language, but the culture of the countries that they are 
involved with. Having that capability makes us much better at 
doing our job.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you so much, Director Panetta, for your leadership 
and distinguished record of service to our country.
    I wanted to ask you, the President's proposal starting in 
2013 to cut $400 billion, do you agree with that proposal, and 
is it a realistic number in terms of preserving our national 
security?
    Mr. Panetta. Senator, obviously, I agree with the 
commitment of the President to try to take action to reduce the 
deficit and the number that he suggested. I do want to say that 
there is a comprehensive review that is going on that the 
President himself stated would take place, the Secretary has 
stated would take place.
    That comprehensive review is looking at a number of issues 
related to the Defense Department in order to determine what is 
the right pace, what are the right areas, what is the right 
transition in order to achieve that savings. I look forward to 
the results of that comprehensive review.
    Senator Ayotte. As a follow-up, you have certainly 
expressed your admiration for Secretary Gates, and I share that 
admiration for his service to our country. He has made some 
recent statements expressing concerns over the $400 billion 
proposal and I think, in fact, talked about it cutting into the 
meat, in terms of the muscle of our defense. Do you disagree 
with him on that front?
    Mr. Panetta. No, no. I share his concerns. I share his 
concerns about the possibility of hollowing out our force. I 
think that would be a terrible mistake. I share his concern 
about some kind of automatic, across-the-board cuts and just 
implementing some kind of formulaic approach to cutting defense 
when we have to look at each area and determine where we are 
going to achieve savings in order to protect defense.
    Obviously, I share those concerns. But what I want to do is 
to be able to look at that comprehensive review in order to 
make sure that none of the concerns that Secretary Gates has 
raised or that I am concerned about take place in seeking those 
reductions.
    Senator Ayotte. In conducting that review, when you get 
into the position of being the Secretary of Defense, if you 
disagree that $400 billion is a reasonable number and could 
jeopardize our national security, would you express your 
opposition to the President on that?
    Mr. Panetta. If the end result of that comprehensive review 
were to come to that conclusion, then obviously, I would share 
those concerns. I don't think it will, but I think that if 
there was something that indicated that our national defense 
would be impacted, obviously, I would share that with the 
President.
    Senator Ayotte. Director, I wanted to ask you about the CIA 
and interrogations. Does the CIA currently conduct 
interrogations of high-value targets or of terrorists or those 
that are captured?
    Mr. Panetta. Senator, the way it works now is that when a 
high-value target is captured, there is a high-value detainee 
interrogation group (HIG) that comes together. That involves 
the Army, the Federal Bureau of Investigation (FBI), and the 
CIA working as a team. They will go and interrogate an 
individual for intelligence as a team. It works pretty well, 
but that is the way it works now.
    Senator Ayotte. But just to clarify, does the CIA actually 
do the interrogations themselves? Meaning I understand what the 
HIG does, but as I understand it, the CIA has really--while 
participating in the HIG, has not been doing interrogations. Am 
I wrong on that?
    Mr. Panetta. Generally, the CIA individual there can ask 
questions. Generally, what is done is that they will share with 
each other what questions ought to be asked by the 
interrogator. That could be the Army individual. It could be 
the FBI. But every once in a while, the CIA individual asks 
questions as well.
    Senator Ayotte. Is there anything that prohibits the CIA 
from taking the lead in conducting interrogations under current 
policy?
    Mr. Panetta. The way the team works now is that, if it is 
someone where intelligence is the primary objective here, going 
after and trying to find that out, then the CIA individual 
becomes pretty central to the questions that are asked. That is 
the way it works now.
    In other words, if there is a real emphasis on that, that 
is one case. If it is an FBI case and they are looking at 
trying to prosecute that individual, then obviously FBI takes 
the lead. If it is a military case or individual that could 
involve follow-up on the military, then they would take the 
lead.
    It really works as a team. That is probably the best way to 
say it. It is a team, and they do it on a case-by-case basis.
    Senator Ayotte. Nothing currently prohibits the CIA from 
being the lead in conducting interrogations?
    Mr. Panetta. Nothing prohibits that from happening.
    Senator Ayotte. Okay. To your knowledge, does it happen 
now? I understand it is a team. But I am just trying to 
understand whether the CIA ever takes the lead.
    Mr. Panetta. It is not the direct interrogation that used 
to take place early on in this decade, but it is much more of a 
team approach right now, and that is the way it works.
    Senator Ayotte. I wanted to follow up with respect to the 
Detainee Treatment Act. Do you agree with all the provisions of 
the Detainee Treatment Act, including the provisions that 
provide legal authority regarding interrogations?
    Mr. Panetta. Obviously, I agree with the law, yes.
    Senator Ayotte. You talked about your view on 
waterboarding. Do you think that all of the enhanced 
interrogation techniques cross the line, I think, was what you 
used when you discussed waterboarding.
    Mr. Panetta. No, I don't have the same view with regards to 
all of the other enhanced techniques that I do with regards to 
waterboarding.
    Senator Ayotte. So, right now under the President's 
Executive Order, the interrogations are limited to the Army 
Field Manual. Is that right?
    Mr. Panetta. Correct.
    Senator Ayotte. You would agree that there are some 
enhanced interrogation techniques that don't necessarily cross 
the line but wouldn't be contained within the Army Field 
Manual. Is that right?
    Mr. Panetta. The enhanced techniques that were used early 
on have now been forbidden by the President's Executive order. 
It is the Army Field Manual that is the primary guide with 
regards to interrogations.
    Senator Ayotte. But to the extent that some of those 
techniques may be permitted under the Detainee Treatment Act, 
and would you necessarily disagree with the law contained 
within the Detainee Treatment Act?
    Mr. Panetta. If it is permitted under the Army Field 
Manual, then obviously, I would support that.
    Senator Ayotte. My time is up. I appreciate your answering 
my questions.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Director Panetta, thank you for your decades of public 
service and your willingness to step forward and extend that 
public service in this new position.
    You will inherit 10 years of war, budget belt-tightening, 
and two wars winding down, if confirmed. You will be tasked 
with reshaping DOD, including resetting its combat-weary units, 
drawing down the DOD budget, and taking care of the DOD members 
and their families. To say that is a set of tall orders is an 
understatement of giant proportions.
    With respect to Afghanistan, there has been quite a bit of 
discussion about the need for benchmarks to do authentic 
assessment of where we are in the transition to the Afghanistan 
capability of defending itself so that it can govern itself 
going forward. I have been a prime supporter of benchmarks, 
first with regard to Iraq and now with respect to Afghanistan 
as well.
    I am introducing legislation today that will require 
benchmarks to evaluate progress being made toward the 
transition of security responsibility to the Government of 
Afghanistan. The bill would call for the benchmarks on 
transition to be included as a part of the already-established 
reporting requirements for Afghanistan known by I think it was 
1230 and 1231 reports to make it consistent.
    I am encouraged by your discussion and your support of this 
method of evaluating progress by some form of metrics so that 
we are not in a gray area always about whether we are winning 
or we are losing or making progress. It gives us an opportunity 
to decide what level of progress have we made, what remains to 
be accomplished for us in that regard. I am encouraged by many 
of my colleagues on both sides of the aisle talking about the 
benchmarks as well.
    Because if we intend to transfer security responsibility to 
the Afghan Government by 2014, obviously, it is important to 
mark our progress. Do you have any preliminary thoughts as to 
the kinds of things you might look at as part of benchmarking 
that would help you evaluate conditions on the ground as to 
whether or not we are making satisfactory progress to where you 
can say we are 25 percent there, 50 percent there, or we have 
50 percent yet to go?
    Mr. Panetta. I think that to establish any metrics or 
guideposts here, it is very important that General Petraeus, 
that obviously our diplomatic leaders there, the administration 
participate in trying to identify those areas that are 
important.
    Levels of violence is an important area to look at. A 
district assessment that looks at each of the districts and 
tries to determine the stability in each of those areas. 
Clearly, an evaluation of the development of the Afghan army, 
police operation, and how they are performing. That is another 
important element. Obviously, the governance responsibilities 
within Afghanistan. I mean, those are all key areas that I 
think need to be evaluated.
    Senator Nelson. In your view, and it is obviously a unique 
view as Director of the CIA, can you give us some idea of what 
you think the impact of the death of Osama bin Laden might have 
on the campaign going forward in Afghanistan and keeping it 
from a safe haven for future al Qaeda operations?
    Mr. Panetta. Senator, with regards to specific intelligence 
on that, that is probably more appropriate in another forum. 
But I think it is fair to say that the death of Osama bin 
Laden, there is no question that it impacted al Qaeda. He was 
the spiritual leader of al Qaeda, and I think it did impact on 
their capability. In addition to that, obviously, there are a 
number of operations that I think have impacted on their 
command and control capabilities as well.
    But having said that, they still remain dangerous, and they 
are dangerous with regards to the efforts they continue to work 
at in Pakistan. One of the concerns that I will share with you 
is that I think we do have to pay attention to these nodes that 
are developing where al Qaeda has moved some of its operations, 
places like Yemen, Somalia, and North Africa. Those are areas 
that I think we have to continue to focus on.
    So, yes, it has had an impact. Yes, I think it has weakened 
them. But they still remain dangerous, and we still have to go 
after them.
    Senator Nelson. I agree with you, and I appreciate that 
view.
    We have had a very touchy situation develop with respect to 
Pakistan in terms of what level of support Osama bin Laden may 
have had from anyone involved in the Pakistan Government. It is 
a complicated relationship, we understand. But the American 
people are really quite concerned about double dealing. You 
can't have a friend be your friend and your enemy at the same 
time. Your friend, but working against you.
    Do you think that the relationship with Pakistan is 
transparent enough at the present time? Is there something we 
can do so that the American public can make a better 
determination of that relationship that we share with the 
Government of Pakistan?
    Mr. Panetta. Senator, I think we have to continually work 
at that. We have to work at developing a relationship of trust 
with the Pakistanis. I don't know that we are totally there. I 
mean, there are some areas where, frankly, we have good 
discussions. We have good communications. But there are a 
number of areas where, frankly, we don't have that level of 
trust or communication capability.
    I think we have to work at that. We have to develop it 
because, as I have said, it is in the interest of both 
countries to have a trusting relationship because terrorism is 
an enemy not just for the United States. It is an enemy for 
Pakistan.
    Senator Nelson. Do you think that an internal investigation 
with some level of transparency within their government to try 
to determine responsibility for anyone who may have had 
involvement in trying to protect the presence of bin Laden in 
their country, that that will be fruitful? If it is fruitful, 
that it will be looked as credible by our Government first, but 
by the American people?
    Mr. Panetta. Senator, at this point, we don't have any 
intelligence to indicate that there was any relationship here. 
But having said that, I do believe that the Pakistanis are 
conducting several investigations at different levels to try to 
investigate what took place, and I think probably would be 
important to see what the results of those investigations are.
    Senator Nelson. Thank you. Good luck in your new position, 
which you are about to achieve.
    Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Director, I can't thank you enough for being willing to 
do this job after being CIA Director. I just think the 
President has put together an A-plus national security team, 
and you are one of the linchpins of that. So now, some hard 
questions. [Laughter.]
    You mentioned to Senator Nelson that you think the killing 
of bin Laden has created some momentum. I couldn't agree with 
you more. What to do with that momentum?
    The statement to me that it makes, there is no place you 
can go and no passage of time that will protect you from 
justice being delivered by the American people. I think that is 
a statement that needs to be made. But we also need to make 
another statement. You can count on America.
    My general belief is that this war is more complicated than 
killing terrorists. Do you agree with that?
    Mr. Panetta. Yes.
    Senator Graham. We have to make an equal investment in 
helping those who would fight the terrorists in their own 
backyard and be our partner. Don't you agree that takes more 
time, that it is more costly and, in many ways, more deadly to 
build up partnerships than just killing an individual?
    Mr. Panetta. It absolutely does take more time.
    Senator Graham. Do you agree with me that the payoff is 
much more enormous if we can get it right?
    Mr. Panetta. Correct.
    Senator Graham. What happens if we lose in Afghanistan?
    Mr. Panetta. I think if we lose in Afghanistan, we not only 
create another safe haven for al Qaeda and for their militant 
allies, but I think the world becomes a much more threatened 
place because of that loss, particularly in that region.
    Senator Graham. I can't agree with you more. I think that 
is absolutely dead on.
    What do I tell a family in South Carolina who has lost a 
son or daughter in Afghanistan to an improvised explosive 
device (IED) that we know was made in Pakistan, and we can't do 
a damned thing about it? What do I tell them?
    Mr. Panetta. I think that is one of those situations that 
is frustrating and angering. One where we have to say to that 
family that we are not just walking away from that 
responsibility, but we are continuing to put pressure on those 
countries that are involved with that.
    Senator Graham. I couldn't agree with you more. I don't 
think, quite frankly, we are going to be able to sustain our 
efforts in Afghanistan until we deal with the safe havens. I 
trust you and General Petraeus to deliver that message.
    But on behalf of the people of South Carolina and I think 
most members of this committee, if you are listening in 
Pakistan, you need to choose. Because it is in your interest to 
help fight the people that would undermine Afghanistan, as well 
as Pakistan.
    I am all in for winning in Afghanistan and doing what we 
need to do in Iraq. But Pakistan needs to get with the program 
one way or the other.
    Now, the Pentagon itself. Do you agree that the general 
system we have today to buy weapons is that the longer it takes 
to develop a weapon and the more it costs, the more the 
contractor makes?
    Mr. Panetta. That is right.
    Senator Graham. Isn't that kind of stupid? [Laughter.]
    Mr. Panetta. Not for the contractor.
    Senator Graham. I mean, it really is. Yes, yes, yes. I 
don't blame the contractor. I blame us.
    What if we did this? What if we said to the contractors in 
the future, you are welcome to bid on major weapon systems, but 
why don't you share 25 percent of the development cost, and at 
the end of the day, we are going to have a fixed price, not a 
cost plus. If there are any overruns, you share in the 
overruns. Do you think that is some idea to at least consider?
    Mr. Panetta. I think that is a suggestion worth looking at.
    Senator Graham. Yes, I think it is, too. I think it would 
save us a lot of money. One thing I would like you to do is go 
back in the past, and if you had a cost-sharing arrangement, 
how much money would we have saved in the last 20 years if we 
had that arrangement versus the longer it takes, the more it 
costs, the more you make? I think it is a way to save money and 
actually get weapons done quicker.
    When it comes to Iraq, if the Iraqis ask us to provide some 
troops in 2012, Secretary Gates says he thinks that would be 
smart. Do you think that would be smart to say yes?
    Mr. Panetta. Yes.
    Senator Graham. Okay. Secretary Gates, do you agree that he 
has a pretty good view of what is going on in the world?
    Mr. Panetta. He sure does.
    Senator Graham. He has served our country in an 
extraordinary manner, I think. If he says 3,000 to 5,000 makes 
sense when it comes to July withdrawal in Afghanistan, would 
you give great consideration to that number?
    Mr. Panetta. I don't want to speculate on what the number 
is. But whatever Secretary Gates recommends----
    Senator Graham. Well, that is what he said. It is not 
speculation. He said 3,000 to 5,000 would be a wise move in 
July. Would you at least consider that request?
    Mr. Panetta. I think Secretary Gates' position, General 
Petraeus' position, obviously the President's position, all of 
that ought to be considered.
    Senator Graham. Would you agree that between all of us, 
that probably Gates and Petraeus have the best view of anybody 
that I know of, if I had to pick two people to ask?
    Mr. Panetta. They have a pretty good view.
    Senator Graham. I would put you on that list, too. Okay. 
Now, when it comes to Libya. If Gaddafi stays, what does that 
mean for our national security interests after we said he must 
go?
    Mr. Panetta. I think it impacts on our national security 
interests in the world if that happens.
    Senator Graham. Do you think it kills the Arab spring?
    Mr. Panetta. I think it sends a terrible signal to these 
other countries.
    Senator Graham. Do you think it tells the Iranians that you 
really don't have to fear America when it comes to developing 
nuclear weapons?
    Mr. Panetta. I think it tells them that our word isn't 
worth very much if we are not willing to stick to it.
    Senator Graham. I couldn't agree with you more. I can't 
wait to vote for you. [Laughter.]
    Now, when it comes to detainees, if we captured someone 
tomorrow in, say, Yemen or Somalia, some of these failed 
states, high-value target, where would we put them as far as a 
jail? Do we have a jail available to our Armed Forces?
    Mr. Panetta. Probably better than anyone here, the----
    Senator Graham. Can I tell you what Admiral Mullen said 
when I asked him that question?
    Mr. Panetta. Sure.
    Senator Graham. We don't have an answer for that question. 
Would you help me come up with an answer?
    Mr. Panetta. That is probably not a bad answer.
    Senator Graham. I think it is the truth. But do you think 
that is a smart policy, to be a nation without a jail in the 
war on terror?
    Mr. Panetta. I think we have to have facilities to be able 
to provide to detainment of these individuals. That is clear.
    Senator Graham. To the committee, we don't, and we need to 
find one. I think Guantanamo Bay is a good candidate because it 
is the only one left.
    Now, in 2014, everybody is focusing on a transition in 
Afghanistan. I think, if we do this smartly, we can transition. 
But I am very interested in making sure, as you said, 
Afghanistan never becomes a failed state.
    Secretary Gates said today, and he said in February when I 
asked him this question, that he believes that joint basing 
past 2014, where you would have American air power and 
counterterrorism units left behind in Afghanistan in a joint 
environment for training and counterterrorism, if the Afghans 
request it, would be a very good policy for us. Do you 
generally agree with that?
    Mr. Panetta. I think the President has made clear that we 
have to make a long-term commitment to stability in that region 
not just now, but in the future.
    Senator Graham. Can I read you what Secretary Gates said to 
my question in February about joint basing?
    Mr. Panetta. Sure.
    Senator Graham. ``A security agreement with Afghanistan 
that provided for a continuing relationship and some kind of 
joint facilities and so on for training, for counterterrorism, 
and so on beyond 2014 I think would be very much in our 
interests.'' Do you think that is a reasoned statement?
    Mr. Panetta. I think that is worth looking at.
    Senator Graham. I do, too. Now, at the end of the day, you 
are taking over at a time when the budget for the Nation has 
never been more out of whack. We're in Afghanistan, Iraq, and 
Libya. You have a very big agenda to fulfill.
    At the end of the day, we are a war-weary Nation. What 
would you tell the American people in terms of the attitude we 
need to take as a country? Address their war weariness and tell 
them why, in your view, we should consider staying behind in 
Iraq, why we should consider a long-term relationship with 
Afghanistan. Why is it so important that we continue to stay in 
the fight after 10 years?
    Mr. Panetta. Senator, it goes back to my father's 
statement. If you want to be free, you have to be secure. The 
only way to ensure that security is to be able to establish 
some kind of peaceful solution to these challenges abroad.
    Chairman Levin. Thank you very much, Senator Graham.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I welcome you and thank you for your service and look 
forward to working and supporting you in every way possible.
    Obviously, part of our mission in counterinsurgency is to 
secure and stabilize and enhance the infrastructure, and I want 
to certainly commend to you and ask you to direct the folks 
that work with you to pay attention to some of the findings of 
the Commission on Wartime Contracting. They issued a report 
last Friday, and I think it is full of very basic common-sense 
information that seems to be escaping us in the area of 
contracting and contingency operations.
    That is two important factors. One on the front end is 
security, whether or not the security is available and 
appropriate in order to support the building of projects that 
we put a lot of money in. We saw this in Iraq over and over 
again, where we would build a power plant, we would work on an 
oil refinery, and then 2 months later it would be blown up. So, 
I think that security piece and, obviously, the cost of the 
security piece in order to build the projects needs to be taken 
into account.
    But the second one, and this report they came out with 
Friday is a really important report, Director, and that is 
sustainability. We have white elephants all over this part of 
the world, all brought to you courtesy of the American 
taxpayer. I will read you just one quote from this report. ``A 
project may be carefully planned, well executed, and 
economical, but become wasteful if the host nation cannot 
provide trained staff, afford parts or fuel, perform necessary 
maintenance, or produce intended outcomes.''
    We have one of these white elephants we spent $300 million 
on in Kabul, a power plant that was designed to be dual fuel, 
and Afghanistan made a commitment to us that they would fuel 
it. Now they say they can't afford the fuel. The fact that it 
is a dual fuel makes it complicated in terms of the technology. 
So, basically, it is now only being used as a backup, and 
Afghanistan is buying electricity from another country.
    This is a great example, but it can be replicated over and 
over again. I really think it is time--and I understand the 
mentality. I respect greatly General Petraeus and his 
strategies in terms of counterinsurgency, but what happens is 
there is this almost myopic focus. If we can build this 
project, we will put people to work. This is good. This is what 
counterinsurgency is all about.
    They don't think about what is it going to look like in 3 
or 4 years. Especially in Afghanistan, you and I discussed the 
sustainability questions in Afghanistan are particularly acute. 
This is not a nation that is ready to take over many things, 
including some of these projects that we are building.
    I really think that if we don't begin analyzing 
sustainability at the front end--and I am going to make a 
formal request to you that every project that is being built 
right now--whether it is a road, whether it is a healthcare 
center, whether it is a school--every project be analyzed right 
now for sustainability.
    If it is obvious it is not going to be sustained, I really 
believe you have to pull the plug. I mean, this is hundreds and 
tens upon billions of dollars have just gone down a rat hole 
because we didn't think about what happens when we are finished 
building it. I think it is really important.
    This is the hardest question, and you and I talked about 
this. What are the conversations that are ongoing and what is 
the planning that is ongoing about how Afghanistan, with their 
very meager gross national product (GNP), very meager GNP, how 
in the world do they afford what we are building them, both in 
the projects and, more importantly, this army that we are 
building for them?
    It is very difficult for me to figure out what happens to 
this army when we leave because they can't afford it.
    Mr. Panetta. Senator, first of all, on your first point, I 
want you to know that if I am confirmed, I really do want to 
work with you closely with regards to the contracting issue in 
order to ensure sustainability. I share all of your concerns. I 
know why it has happened. I know how that has developed. But at 
the same time, I don't think we have paid enough attention to 
that issue, and I would like to work with you in trying to 
improve that whole aspect.
    With regards to the issue of Afghanistan, again, I share 
your concern about where are they going to draw the resources 
they need not only to sustain the army and the police force, 
but to be a country, to be able to carry on their 
responsibilities. I think that is going to be part of the 
governance challenge that we are going to face there is to 
ensure that, as a nation, they begin to develop the resources, 
develop the revenues that they need in order to be able to 
govern that country. That is going to be part of it. Otherwise, 
it is not going to work.
    Senator McCaskill. Is there a plan in place for short term 
and long term? Is there some kind of plan that is in the works 
that we will be putting I think it is $13 billion this year? 
What is the plan for 4, 5 years from now? Is there a plan that 
we will continue to spend upwards of $5 billion or $6 billion a 
year just keeping this army?
    We are building them an army with a size and scope that is 
beyond--they have never had an army, a national army in 
Afghanistan. So this is new, and is there planning going on, 
joint planning or anything else that would indicate how this is 
going to look 2, 3, 4 years down the line in terms of what we 
have built?
    Mr. Panetta. Senator, I have not been fully briefed on what 
directly is being looked at in terms of that longer term. But 
let me get into that. If I am confirmed, I would like to look 
at that and then be able to give you a better answer.
    [The information referred to follows:]

    The administration is working to ensure a successful transition to 
the Afghan National Security Force (ANSF) having the lead 
responsibility for security throughout Afghanistan by the end of 2014.
    We are making steady progress in developing the quantity, quality, 
and operational capacity of the ANSF. We remain on track to reach the 
envisioned end strength of 195,000 Afghan National Army soldiers and 
157,000 Afghan National Police personnel. Our effort now include the 
development of logistical, engineering, communications, medical, and 
other enabling capabilities that the ANSF will need to support their 
own operations, as well as organic training and education capabilities 
they will need to sustain themselves by developing their future 
recruits. Our efforts also include the development of ministerial-level 
management and oversight capabilities necessary to lead and sustain the 
ANSF.
    Detailed planning for long-term ANSF sustainment is an ongoing, 
active effort. The Combined Security Transition Command-Afghanistan is 
collaborating with the Office of the Secretary of Defense, the Joint 
Staff, and NATO to analyze the long-term requirements for ANSF 
capability in light of current fiscal constraints. We envision a 
continuing role for the United States and expect continued 
contributions from international donors. To that end, before retiring, 
then-Secretary of Defense Gates challenged our partners in the 
International Security Assistance Force to contribute a combined 1 
billion euros annually to the NATO Afghan National Army Trust Fund.
    Although international support for the ANSF will likely be required 
for some time to come, ultimately, Afghanistan must continue to 
increase its funding for its own security. This will depend on 
continued economic growth and governance in Afghanistan, which, in 
turn, will benefit from the security that a properly sustained ANSF can 
provide, as well as from the stabilizing effects that can result from a 
strategic partnership between Afghanistan and the United States and the 
continued presence of U.S. forces.
    As our plans evolve, we will engage you and congressional 
colleagues on the details of this challenging effort.

    Senator McCaskill. That is great. The only other topic is 
warning you that I will subject you to pop quizzes on the 
Wartime Contracting Commission's work. They have done some 
really good work. My colleague Senator Webb and I have worked 
very hard getting it established, and I think it is like many 
other commissions. Unfortunately, it is not getting enough 
attention, and really, where it needs to be front and center is 
going to be under your purview.
    I am hoping that you will make sure that your immediate 
staff is aware of its work and takes it to heart. Because we 
have an awful lot of lessons learned that we have never 
learned. I think it is really important, as we try to do things 
with less money.
    The only other issue I want to bring up with you today that 
I don't think has been discussed yet is just getting your 
commitment and your comments about what needs to be done and 
should be done as it relates to the problem of sexual assault 
within the military, women in the military that have had a 
great deal of difficulty accessing some sense of justice.
    Mr. Panetta. Senator, we talked about that together in your 
office, and I totally share your concerns. We have to have zero 
tolerance for any kind of sexual assaults in the military, and 
we have to allow the victims of those sexual assaults the 
ability to be able to complain, to have those complaints 
listened to, and to have the evidence that is necessary to be 
able to establish those cases.
    There are a lot of steps that need to be taken, and I look 
forward to working with you and with others in the Department 
to make sure that we protect women, who have served so well in 
the military these days.
    Senator McCaskill. Thank you so much for your time here 
today. Most of all, thank you for loving your country so much 
that you are willing to take on this incredibly big, huge, and 
important responsibility.
    Mr. Panetta. Thank you.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Director Panetta, good to see you.
    Mr. Panetta. Nice to see you.
    Senator Cornyn. As you and I discussed in my office, and 
thank you for coming by recently to talk about some of my 
concerns with the financial management problems at DOD, I think 
most Americans would find it shocking that DOD is unable to 
produce timely, accurate, and complete information to support 
management decisions.
    As we also discussed, the law of the land requires DOD to 
be able to complete a clean audit by 2017. Again, I think that 
would be shocking to most people.
    But I appreciate your response on page 74 of your advance 
policy questions, the answers you submitted to our questions 
that you said achieving clean audit opinions would be one of 
your top management improvement priorities. Certainly, you have 
the background and experience to move the Department in that 
direction and to complete that requirement of the law.
    I am advised that the Marine Corps actually is doing a 
relatively good, compared to the other Services, job in this 
area, and they are experiencing a 3-to-1 return, on for every 
dollar they spend on improving financial management, actually 
getting a good return on that investment. I know that it may be 
the attitude, there may be strong institutional resistance at 
DOD--believe me, as many do and as I do--that their main job is 
to fight and win the Nation's wars, but that this is not a 
priority.
    But you know and I know, we all know, the budgetary 
pressures the Department and others are going to be under as we 
deal with this unsustainable debt and these huge deficits is 
important. I think this is important to me and I know important 
to you to make financial management reform one of your 
important priorities.
    Having said that, I would just ask you the straight-up 
question, do you agree with Secretary Gates when he said that 
the defense budget, however large it may be, is not the cause 
of the country's fiscal woes?
    Mr. Panetta. I agree with that. I think it isn't. It is by 
no means the cause of the deficits, the huge deficits that we 
are incurring today.
    Senator Cornyn. The President has requested $671 billion 
for fiscal year 2012. That is a lot of money, $671 billion. I 
know that there is going to be room for the Department to share 
in some of the budget cuts that are going to be on the table.
    But of course, as you and I have discussed, I hope that 
this is not seen as an opportunity for those who want to whack 
the Pentagon budget to do so in a way that will impair our 
ability to defend ourselves or protect our national security 
interests. I am sure you share that view as well, don't you?
    Mr. Panetta. Yes, I do.
    Senator Cornyn. Let me just ask a question, you have the 
benefit of great experience and long experience with 
Government. But that also means you have a record that I want 
to ask you about. Of course, you were President Clinton's Chief 
of Staff and Director of OMB before that. You played a big role 
in the budget decisionmaking during the presidency of President 
Clinton, overseeing a major reduction in DOD procurement 
spending, including a 13.4 percent decline in fiscal year 1994.
    Some have called that a procurement holiday. Others have 
said we were cashing the peace dividend, even though we still 
had many threats to our country. I want to give you an 
opportunity, if you would, to explain your role in those cuts 
and whether you think they were deeper than they should have 
been or just please give us your perspective. Because, frankly, 
I hope we don't try to cash a peace dividend in 2012 while we 
are engaged in two and a half wars.
    Mr. Panetta. As Director of OMB, obviously, I was given the 
responsibility by the President to try to achieve significant 
savings as part of the economic plan that was adopted by 
Congress that, by the way, reduced the deficit by almost $500 
billion. I think that, plus other agreements that were made in 
the Bush administration and, ultimately, with the Republican 
Congress all contributed to our ability to achieve a balanced 
budget.
    Specifically, with regards to the defense area, my 
responsibility as OMB Director was to provide a number to the 
Defense Secretary and allow the Defense Secretary and those at 
the Defense Department to determine how best to try to achieve 
those savings. I do understand that was part of what they 
proposed.
    But looking at it in hindsight, it might not have been the 
best way to achieve those savings, but it was a decision that 
was made at the Defense Department.
    Senator Cornyn. Turning to Afghanistan, I know there is a 
lot of comment and favorable comment about your involvement, 
and I think you deserve credit for your part played in taking 
down Osama bin Laden. Congratulations to you and the 
President's national security team for that accomplishment.
    But I get the sense that people are sort of prematurely 
declaring that the fight is over because we have degraded al 
Qaeda in Afghanistan. I am glad to hear you point out that they 
have metastasized to other parts of North Africa and the 
region.
    But I just want to ask you in particular, I know there are 
other groups that may not be as familiar to Americans as al 
Qaeda, like Lashkar-e-Taiba and other groups. Could you just 
talk a little bit about the Islamic jihadist groups that are 
out there that could easily morph into a threat as dangerous as 
al Qaeda?
    Mr. Panetta. There are a number of terrorist groups that 
are out there, Senator. Obviously, al Qaeda is the one that we 
are principally concerned about because they attacked this 
country, and they continue to plan to attack this country.
    But there are interrelationships that they have with other 
terrorist groups. The Haqqanis, for example, are a group that 
has relations with al Qaeda. They, in turn, obviously are 
conducting attacks in Afghanistan. There is a group called 
Tehrik-i-Taliban Pakistan, which is another group in the FATA 
that has relationships with al Qaeda that conduct attacks, not 
only plan attacks against us, but also have conducted attacks 
within Pakistan as well.
    There is Lashkar-e-Taiba which is a terrorist group that 
focuses on attacks largely in India but have been known to 
discuss attacks elsewhere as well.
    If you move to the area of Yemen, there, al Awlaki who is 
associated with al Qaeda, but nevertheless I think represents a 
real threat on his own because he is very computer oriented 
and, as a result of that, really does represent the potential 
to try to urge others, particularly in this country, to conduct 
attacks here. So that is a concern.
    We have Somalia, where al Shabaab operates in Somalia. 
Although it is primarily located in Somalia, we do have 
intelligence that indicates that they, too, are looking at 
targets beyond Somalia. Then if you add to that Hezbollah and 
Hamas, you can see that you have a pretty good array of 
terrorist groups to confront.
    Senator Cornyn. Thank you very much. My time is up. But I 
think it is important that the American people understand the 
threat to our country, our national interests, our interests of 
our allies and American citizens extends beyond solely al 
Qaeda. I appreciate your answer.
    Thank you. I look forward to working with you.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for this 
hearing.
    Thank you so much, Mr. Panetta, for your extraordinary 
public service to our country. I am extremely grateful.
    I want to touch upon three issues, if we have time. I want 
to explore a little more on Pakistan, al Qaeda in the Arabian 
Peninsula (AQAP), and then go to a little bit of cyber warfare.
    Chairman Mullen stated a few months ago that it is fairly 
well known that elements of the Inter-Services Intelligence had 
a longstanding relationship with the Haqqani network. 
Obviously, addressing the Haqqani network is really important 
to reaching our goals in Afghanistan.
    Yet a week ago, he reported that Pakistan has agreed to go 
after the terrorist group. How will you judge the seriousness 
of Pakistan's commitment to that effort?
    Mr. Panetta. I think there is probably a simple test, which 
is whether or not the Haqqanis are continuing to go into 
Afghanistan and attacking our forces. It seems to me that if 
they have an influence over the Haqqanis, that they could urge 
them to cease fire and to stop those kinds of attacks.
    Senator Gillibrand. I appreciated your testimony earlier 
about the nature of al Qaeda, that it has fundamentally 
metastasized, and in fact, many believe that al Qaeda in the 
Arabian Peninsula is perhaps far more dangerous than any other 
aspect of al Qaeda today.
    You also mentioned that al Qaeda works in a very diffuse 
way, that oftentimes, it is inspiring groups like al-Shabaab in 
Africa and AQAP in Yemen. Of the three terrorist attempts on 
our homeland since September 11, the one on New York came out 
of Pakistan, the Christmas Day attempt on Chicago from Yemen, 
and the Fort Hood massacre motivated out of Yemen. Al Awlaki 
recruits online, including from Europe and the United States, 
and we need to focus on a smart strategy to address these 
threats.
    I support your view that we have to take these threats 
head-on and we have to make them very much part of our mission. 
I want to understand why in Yemen our approach is so different 
than that of Afghanistan. Perhaps not in this setting, but to 
talk a little bit about what some of your long-term strategies 
are to deal with the fact that al Qaeda has changed so much.
    Mr. Panetta. With regard to specific operations, I would 
have to do that in another forum. But just generally, I think 
our approach has been that because of these nodes that have 
developed, our approach has been to develop operations in each 
of these areas that will contain al Qaeda and go after them so 
that they have no place to escape.
    So that we are doing that in Yemen. It is obviously a 
dangerous and uncertain situation, but we continue to work with 
elements there to try to develop counterterrorism. We are 
working with Joint Special Operations Command as well in their 
operations. Same thing is true for Somalia and with regards to 
al Qaeda in the Islamic Maghreb in North Africa, we are working 
with both the Spanish and the French to develop approaches 
there that will contain them as well.
    I think we have at the CIA tried to develop a more 
comprehensive strategy to kind of look at all of those nodes, 
look at all of those threats, and not just focus on the FATA or 
Pakistan, but focus on all of those threats in order to try to 
deal with it.
    Senator Gillibrand. Right. Now, obviously, Yemen is under 
substantial turmoil, and we don't know whether the government 
survives or not. Do we have strategies in place to make sure 
that if there is a transition that we are very knowledgeable 
about what military assets are there, what will happen to them? 
Have you engaged the Saudis or any other potential allies in 
what we can do there to protect against future growth of 
terrorism?
    Mr. Panetta. Again, with regards to specific operations, I 
really have to discuss that in another forum. But it is a very 
uncertain situation. It has been destabilized, and yet we are 
continuing to work with those individuals in their government 
to try to go after AQAP, and we are continuing to receive 
cooperation from them.
    At this point in time, I would have to say that while, 
obviously, it is a scary and an uncertain situation, with 
regards to counterterrorism, we are still very much continuing 
our operations.
    Senator Gillibrand. Last, if I still have time, Mr. 
Chairman, I appreciated the testimony you gave earlier, Senator 
Reed asked about it and others, about cyber terrorism, cyber 
crime, cyber attacks, and cyber warfare. I appreciated the fact 
that the statement was made that a cyber attack could well be a 
declaration of war, and you and I had a chance to talk about 
this in some respects.
    Can you share with us any of your vision, design, goals 
with regard to how we create a greater platform for 
cybersecurity and cyber defense? In particular, I have worked 
with Senator Hatch on creating some international protocols to 
create alliances and working relationships with both allies and 
nonallies on how to begin to have an ability to enforce laws 
against cyber attacks, cyber criminals, cyber terrorists, and 
any other form of cyber mischief. I would love your thoughts on 
what you can share with us.
    Mr. Panetta. Senator, as we discussed in your office, this 
is an area of great concern for me because I think what I have 
witnessed at the CIA and elsewhere is that we are now the 
target of increasing attacks that go after our systems, and it 
is extremely important for us to do everything we can to 
confront that threat.
    Obviously, I have a great resource with the NSA that has 
tremendous expertise and tremendous knowledge in this area. 
What I would like to do is to develop an even more effective 
force to be able to confront cyber terrorism, and I would like 
to work with you on the effort to try to develop those kinds of 
relationship not only here, but abroad, so that other countries 
can work with us in this effort.
    We talk about nuclear. We talk about conventional warfare. 
We don't spend enough time talking about the threat of cyber 
war.
    Senator Gillibrand. Thank you.
    Last, I just want to thank you for your testimony today 
about your priority to look out for the men and women serving 
in our armed services and their families. I think not only must 
that be one of your primary responsibilities, but I appreciate 
that it is in the forefront of your mind.
    My time has expired. I will just leave you with I hope you 
continue that focus and particularly focus on the issue of 
housing. Because a lot of troops are coming back from various 
missions, and Fort Drum and other places around the United 
States really have inadequate housing supply. I hope that you 
can address that in a perhaps more aggressive and more nuanced 
way.
    Thank you so much, very much for your testimony.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator Collins.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Director, you certainly deserve the widespread accolades 
and expressions of gratitude that you are receiving from 
virtually every member of this committee today, and I want to 
add my own thanks for your willingness to continue to serve our 
country during such a difficult time.
    But like my colleagues Senator Graham and Senator Brown, 
now the hard questions start. I want to start with Libya.
    You have repeated today the administration's goal that 
Colonel Gaddafi must go. But what then? If there is any painful 
lesson that we have learned from our experience in Iraq, it is 
that if we do not have a plan in place after we have deposed a 
tyrant, that chaos and violence ensues.
    Do you have confidence that we have a plan for dealing with 
Libya post Gaddafi, and do we even really know who we are 
dealing with in the opposition?
    Mr. Panetta. I know that Secretary Clinton is spending a 
great deal of her time working with our allies to respond to 
that concern, to try to work with those in the opposition who 
have come together in the consuls that they have developed 
there, to try to work with them in terms of greater support so 
that if they do, in fact, have to take control of the country, 
that they will have that capability.
    What you have raised is a legitimate concern, and it is an 
area that we have a lot more work to do in order to ensure that 
if Gaddafi does step down that we can ensure that Libya will be 
a stable country.
    Senator Collins. It really concerns me, particularly when 
you look at the leadership of al Qaeda and the Libyan presence 
there, if you look at the number of foreign fighters in Iraq 
that have come from Libya. I just don't feel any confidence 
that we know what comes next.
    Mr. Panetta. The opposition, obviously, has been made up of 
various tribal groups that have come together, and there are 
concerns about some of the other influences that are now trying 
to impact on the opposition. It is something that we are 
watching very closely, but I do think that if we can get 
Gaddafi to step down that I am confident that there are enough 
leaders in the opposition who can provide, hopefully, that 
continuity.
    Senator Collins. Let me next turn to Afghanistan. No one 
wants to lose Afghanistan, and all of us are so mindful of the 
enormous sacrifices that our military men and women have made 
in Afghanistan and the enormous amount of taxpayer dollars that 
have been spent.
    Senator Brown asked you a key question today about what is 
our mission? You talked about the goal of having Afghanistan be 
a stable state, and that certainly is something that I want 
also. But to me, that seems to be a never-ending mission. I 
don't see how we get to a stable state in Afghanistan.
    Let me give you an example. A key to our transition in 
Afghanistan, the key to our troops being able to come home is 
the development of a competent, aggressive Afghan security 
force, and we have made a lot of progress in that area.
    But I look at the cost of maintaining the Afghan security 
force. In this year's presidential budget request, it is $12.8 
billion. The total Afghanistan gross domestic product (GDP) is 
about $30 billion, and 97 percent of Afghanistan's GDP is 
derived from spending related to international military and 
donor community presence.
    When I look at that imbalance, I don't see how Afghanistan 
is ever going to be able to even afford its own security 
forces. That says to me that we are going to have to continue 
to be a major contributor to paying for those security forces 
forever, virtually. Tell me how this ends. I just don't see how 
it ends.
    Mr. Panetta. I understand the concerns that you have 
raised, Senator, and I think we all share those concerns. I 
guess I can only say, having served on the Iraq Study Group, 
there was a moment in time when I had a lot of the same 
concerns about Iraq and whether or not Iraq would ever be 
stable enough to be able to draw down our forces there.
    While Afghanistan is a very different country and has a 
very different history, the fact is that over the last few 
years, I have seen progress made with regards to governance in 
some of the key areas, with regards to security, with regards 
to the role of the Afghans in participating with our forces to 
try to secure area. They have gotten better.
    Whether or not, in the end they are going to be able to 
develop the resources, develop the revenues, develop the 
governance that needs to be done, those are major questions. 
But I think if we stick with it, if we continue to provide help 
and assistance to them, that I think there is going to be a 
point where Afghanistan can control its own future. We have to 
operate on that hope.
    Senator Collins. Finally, let me echo the concerns that my 
colleagues have raised about whether the budget constraints, 
which are very real, are going to drive our military 
requirements rather than vice versa. This is an issue we 
discussed in my office.
    This year, when the independent panel looked at the 
Quadrennial Defense Review (QDR), it concluded that the QDR had 
been molded by the budget rather than being what it is supposed 
to be, which is an unvarnished assessment of what our military 
requirements are. I am particularly concerned about the gap 
when I look at the Navy's shipbuilding budget. The Chief of 
Naval Operations has testified before our committee that we 
need, at a minimum, a 313-ship Navy, and we know the 313-ship 
goal is much smaller than the actual requirement that our 
combatant commanders have for ships.
    Indeed, there was a recent report just 2 months ago from 
the Navy on the ballistic missile defense (BMD) force structure 
requirements that states that the Navy currently does not have 
the capacity to meet the demands of our combatant commanders 
for BMD capable ships. I am very worried about that gap in this 
time of budget constraints. I am worried that the Navy has yet 
to complete the contracts on the DDG-1000, the second and third 
ships.
    What actions do you think need to be taken to help close 
the gap between the 285-ship Navy today and the, at a minimum, 
313-ship requirement?
    Mr. Panetta. I strongly believe that the Navy has to 
project our force throughout the world and that the Navy is 
obviously crucial to that mission. I agree with the ship 
numbers that have to be developed for the Navy in order to be 
able to do that.
    I think the key here is going to be something that has 
happened in your own State, which is that shipbuilding 
operations have to develop greater efficiencies. Yours is a 
great example of having developed those kinds of efficiencies 
that helps us on the cost control side and at the same time 
allows us to continue our shipbuilding capability.
    I do think that greater competition, greater presence of an 
industrial base here that deals with these issues will provide 
the kind of cost savings that we will need in order to fulfill 
that mission.
    Senator Collins. Thank you, and I look forward to working 
with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Mr. Panetta. Senator, I don't know if you are going to take 
a break. But I just----
    Chairman Levin. Yes. I think it sounds to me like we are 
going to take a break. [Laughter.]
    But this will not be a lunch break. This will just be a 
very brief 5-minute break, and Senator Blumenthal will be next. 
Just take a very quick break and then back here. We will finish 
the questions, and then we will have a lunch break.
    Mr. Panetta. Thank you. [Recess.]
    Chairman Levin. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Mr. Panetta, thank you for answering all our questions, for 
your extraordinary service, and for your very powerful and 
eloquent testimony today and your very responsive answers to 
all of the issues that have been raised.
    I want to second the sentiment that has been expressed by 
Senator Graham, which is I can't wait to vote for your 
confirmation, and I appreciate your willingness and patriotism 
to take on this very tough assignment. Also to second Senator 
Graham's views, and I think they are widely shared, that we 
need fundamental and far-reaching reform in our methods of 
acquiring and terminating weapons programs.
    Would you agree with that?
    Mr. Panetta. Yes, I do.
    Chairman Levin. I think, Senator Blumenthal, that probably 
Director Panetta would also agree that Secretary Gates can't 
wait for us to vote for Director Panetta's confirmation. 
[Laughter.]
    Mr. Panetta. I think that is fair to say.
    Chairman Levin. That will not be taken out of your time, by 
the way.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Speaking of Secretary Gates, I hope and assume you would 
agree with him that the second engine for the F-35 is 
unnecessary and should be terminated?
    Mr. Panetta. I support that position.
    Senator Blumenthal. Also that we need to continue the sub 
building program at the rate of two per year, which I think is 
fairly noncontroversial?
    Mr. Panetta. That is correct.
    Senator Blumenthal. Would you also agree with Admiral 
Mullen that talking about a secure and thereby free America, 
that the greatest threat to our security today is the national 
deficit?
    Mr. Panetta. There is no question in my mind that the size 
of the deficit we are confronting represents a threat to our 
security.
    Senator Blumenthal. That we need to address that problem 
without excessive cost cutting in the defense budget?
    Mr. Panetta. Obviously, defense needs to play a role. But 
when you are facing that size deficit, everything has to play a 
role.
    Senator Blumenthal. I want to talk for a moment about one 
of the causes of those costs in both our defense budget and our 
veterans programs, and they are a cause of cost that is not 
necessarily in the headlines or even reported, and those costs 
have to do with tobacco use and tobacco addiction and the costs 
of tobacco-related diseases.
    I know that the Defense Department is very much aware of 
these costs because, as a matter of fact, it asked all military 
personnel last year to make their 2011 New Year's resolution to 
quit smoking. In fact, about $1.6 billion a year in DOD costs 
are related to medical care that is provided for tobacco-
related diseases. Among the retirees from our military for 
veterans, about 80 percent of the $5 billion in annual costs of 
treating pulmonary disease are directly attributable to 
smoking.
    The costs of smoking simply in dollar terms, medical 
treatment, are at least $5 billion a year, not to mention the 
impacts on readiness, which are, in effect, less fit, less 
physically able military personnel, more likely to sustain 
injuries, more likely to be stressed out, more likely to be 
dependent and addicted to nicotine. The stark fact is that 
military personnel are 50 percent more likely to smoke and more 
likely to use tobacco products than their civilian peers.
    My question to you is both an immediate and a longer-range 
one. First, whether you have any suggestions as to what can be 
done immediately? Second, would you be willing to commit the 
resources and interests of DOD to addressing the problems of 
nicotine addiction and tobacco use and the related medical 
impacts?
    Mr. Panetta. Senator, if I am confirmed, one of the areas I 
have to focus on is the health costs that are impacting here. I 
think the area that you have just defined is one area that we 
do have to pay attention to in terms of its implications on 
health and its implications on cost. I would look forward to 
working with you to try to develop an approach that would allow 
us to, again, not only deal with smoking, but deal with other 
threats to healthcare that impact on not only our soldiers but, 
frankly, that impact on Americans.
    Senator Blumenthal. On the families of our soldiers and our 
veterans?
    Mr. Panetta. That is right.
    Senator Blumenthal. Because of not only the immediate 
effects of smoking or other kinds of health problems, but also 
the related impacts on families.
    Mr. Panetta. No, that is right. I think smoking, good 
nutrition, good exercise. I mean, there are a number of areas 
that I think need to be focused on as part of the solution to 
dealing with healthcare costs.
    Senator Blumenthal. I would welcome the opportunity to work 
with you on those issues.
    Mr. Panetta. Thank you.
    Senator Blumenthal. Let me say while we are talking about 
veterans, I have offered a measure, a number of other Senators 
have, to broaden and deepen the commitment of our country to 
caring for issues relating to employment, homelessness, 
healthcare of our veterans and would hope that DOD would also 
increase its commitment in that area and hope under your 
leadership, it would, given your very moving and powerful 
remarks about the need to take better care of our military 
personnel.
    Mr. Panetta. Senator, I really do feel an obligation to 
those that served, and I don't treat this like a situation 
where once you have completed your service and you become a 
veteran that somehow you are somebody else's responsibility. I 
think we have an obligation to make sure that people are 
treated right once they have served this country not only now, 
but in the future.
    Senator Blumenthal. Finally, because my time is close to 
expiring, let me ask you one last question. The ammonium 
nitrate fertilizers that are the cause of probably the vast 
majority of the IED very tragic and unfortunate injuries to our 
troops are transported from Pakistan, and I wonder what can be 
done to stop that flow of fertilizer, the ammonium nitrate 
substances that are the basis for those explosive devices?
    Mr. Panetta. Senator, that is a continuing concern for us, 
and it is not so much the transfer of the material, but it is 
actually the development of IEDs, the explosives themselves, 
that we see taking place in Pakistan that make their way into 
Afghanistan. We have to take a number of steps not only with 
the Pakistanis, but also trying to check at the border to make 
sure that we do everything possible to stop that flow of IEDs. 
It is a very real threat, and a lot of that is coming across 
the border.
    Senator Blumenthal. Thank you very much, and I look forward 
to working with you. Thank you once again for your service to 
our Nation.
    Mr. Panetta. Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    It is a pleasure to have you before the committee. As I 
told you, Mr. Panetta, when we had the opportunity to speak, I 
am delighted to see that a former OMB Director could actually 
make something of himself. You have done a great job as CIA 
Director, and I know that you have had the opportunity today to 
answer some tough questions, but also I am sure that the tone 
has been appreciative and respectful.
    I am most concerned on the budget front and particularly 
with regard to our major acquisitions programs. The cost 
growth, the time delays have been particularly troubling to me. 
On this committee over the 4 or 5 months, we have heard lots of 
testimony, and this is at the same time, of course, that we are 
talking about not just restraining spending but actually 
putting everything on the table to deal with our historic 
deficits and the debt overhang that is affecting our economy so 
directly and affecting our future.
    This concerns me greatly. It also, I think, impacts our 
national security because our men and women in uniform need the 
best equipment and they need it in a timely manner, and they 
are not getting it.
    A couple of data points, and you know them well. Cost 
overruns annually now are, in some years, over $300 billion a 
year. This is, as compared to just a decade ago, when annual 
overruns were on average about $40 billion year. The average 
delays almost 2 years in delivering initial capabilities for 
these programs.
    The reasons are varied. Sometimes it is internal DOD 
processes, I think. Sometimes it is these contracting processes 
that still aren't working, and these practices have been 
subject to a lot of GAO reports, directives, and public and 
private studies. There has been some good work done on it, and 
the chairman has done some good work on it, but we still have a 
long way to go.
    This would be one of my major concerns. Given your 
background and experience, I think you are well qualified to 
address it. I would like to hear a little about that.
    Senator Graham apparently talked earlier today about cost-
sharing arrangements and the potential for that. I think that 
is an interesting idea. On the Joint Strike Fighter program 
alone, we heard testimony before the committee that we are 80 
percent over cost from the original estimates. That is over 
$150 billion and 30 percent more than the current baseline that 
was just set in 2007.
    After 15 years of development and 2 years into operational 
production, we still don't have a stable design. Again, I think 
that impacts our warfighters as well. I realize the Defense 
Department is working on implementing the Systems Acquisition 
Reform Act, and the better buying power initiative is ongoing. 
But, frankly, there is a lot more that needs to be done.
    Could you talk a little about this and particularly the 
benefits of competition, as we talked about privately, and 
finding efficiencies?
    Mr. Panetta. Senator, because we share a common background, 
I think we understand the costs that are involved in this area. 
I think we are dealing with a culture that has developed that 
somehow we have to change. I know during the period from 
September 11 there has been an awful lot of money that has been 
put into the defense budget, a lot of equipment that has been 
developed during that period. I think at the same time, a lot 
of it has certainly been worthwhile, been important to our 
national defense. But a lot of bad habits have developed during 
that period.
    I think there is an assumption that somehow this thing can 
play out and that the cost can increase as dramatically as you 
have pointed out in some of these areas and that somehow 
somebody is still going to pay the bill. I think what we have 
to do is to make clear that those who are involved--and they 
are great companies; they are good people; a lot of them do a 
great job--that they have a responsibility here to be able to 
work with us to develop better competition, to do some of the 
things that Senator Graham mentioned in terms of absorbing some 
of the costs of development.
    The work that they are doing is not just money in their 
pocket. What they are working on is important to the national 
security of this country, and I think what we have to do is 
work with them, work with contractors, work with others to try 
to develop approaches that can try to shape the costs that are 
involved and the delays that are involved here.
    I know this is tough. I know that some of this military 
technology is extremely intricate. It involves a lot of 
complicated work. But I am absolutely convinced that there has 
to be a way to achieve greater cost savings, and I hope to work 
with you and others to try to see what we can do to do that.
    Senator Portman. I am encouraged from our conversations and 
this testimony today that you are prioritizing that. 
Ultimately, if we don't fix it, we will be robbing from some of 
the fundamental responsibilities you would have as Secretary of 
Defense to protect our country. Because looking at some of 
these projections over the next decade or 2 decades, if we 
don't begin to figure out how to deal with these overruns on 
the acquisition programs, they will quickly take the entire 
current defense budget.
    We need to be sure that our men and women in uniform are 
getting what they need and be sure that this and the healthcare 
issue, which I know you have also addressed here today, is the 
other one where I think you look at the huge cost increases 
there, has to be handled in a way that, again, ensures that the 
focus is on our national security concerns.
    Quickly, on trade agreements, as you are aware, we are 
hoping soon to be reviewing proposed export opening agreements 
with the Republic of Korea, with Panama, and with Colombia. 
This has been increasingly clear in the post Cold War 
environment, all elements of our national power must be used to 
provide for our security and build effective allies, and these 
three countries are great allies.
    In response to prepared questions, you noted that the U.S.-
Republic of Korea alliance remains one of the cornerstones of 
U.S. strategy in the Asia-Pacific. I found that interesting, 
and you have pledged to stay in close contact with your 
counterparts there and build on the relationships laid by 
Secretary Gates.
    You also noted the importance of the Government efforts to 
support DOD activities providing training, equipment, and so on 
to our Central American partners, including Panama, given the 
importance of the canal particularly and the U.S. Southern 
Command's (SOUTHCOM) work there.
    Also with regard to Colombia, in testimony earlier this 
year, the commander of SOUTHCOM described our trade agreement 
with Colombia as ``a very positive, beneficial aspect for our 
cooperation because of a growing capacity to support the 
capabilities of Armed Forces and law enforcement.''
    My question would be to you, how do you assess the value 
from a security standpoint of building upon these commercial 
ties through these trade opening agreements with these allies, 
and do you agree that these enhanced trade and investment 
agreements is one way to combat the threats that these states 
face to their security and to the broader region?
    Mr. Panetta. Senator, I think that when it comes to 
protecting our security, there are a number of areas that have 
to be addressed, and one of those, obviously, it is not just 
the military responsibility, but there is an economic side of 
this that plays a very important role in terms of promoting 
better security.
    The ability of these other countries to develop trade with 
us, to develop their economies creates greater stability within 
those countries. I think that is a fact. To the extent that we 
can help promote that kind of trade, that we can promote that 
kind of economic development, I think it assists these nations 
in their ability to achieve stability.
    Colombia is a good example. They have done a great job 
going after narco-trafficking. If we can help, be able to help 
them develop their economy, that could become another added 
factor in providing greater security in that region. The same 
thing is obviously true for Korea.
    Senator Portman. Do you think ratification of these three 
agreements would be positive for our national security 
interests?
    Mr. Panetta. Yes, I would.
    Senator Portman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Portman.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Director Panetta, again, I appreciate your having come by 
my office to have detailed conversations on a number of areas. 
Having had the honor and the privilege of meeting with Caspar 
Weinberger, when he was Secretary of Defense, on a daily basis 
for 4 years, I am well aware of the challenge of your job. I 
honestly believe that, other than the presidency itself, this 
is probably the most difficult and complicated job in our 
Federal Government, and I wish you the best.
    I also appreciate or was gratified to hear your response to 
Senator Collins with respect to the need to rebuild our Navy, 
to get the Navy's numbers up. I think as the situation in 
Afghanistan and Iraq allows us more leeway in terms of how we 
shape the DOD budget, we really do need to do that.
    If you are looking at the size of the Navy right now, I 
think it is about 282 ships, and the ground floor goal of 313 
and all of the interests, the vital national interests that we 
have with respect to the stability of East and Southeast Asia, 
it is going to be a very important thing for us to look at. In 
that regard, I would like to raise two points with respect to 
the situation in East Asia, and then I also would like to ask 
you a question about Libya.
    First, when we are looking at the tempo in East Asia, we 
see clearly that Chinese military activities have dramatically 
increased over the past 15 or 16 months. The two most glaring 
examples of that were the set-to with Japan in the Senkaku 
Islands about a year ago, and then most recently, the Chinese 
naval vessels actually cutting the cable of a Vietnamese ship 
that was exploring oil, the possibility of oil in the South 
China Sea.
    These incidents are basically related to sovereignty 
issues, and they are not only national security issues, they 
obviously have downstream economic consequences. But to me, 
they clearly talk to the commitments that we have for stability 
in this region.
    We have made these commitments. We are the key, I think, to 
the strategic balance in that region. I am wondering if you are 
of the same mind as Secretary Clinton and Secretary Gates were 
last year, a year ago, when they pretty strongly stated that we 
are not going to be deterred from protecting the interests of 
countries in international waters in that part of the world?
    Mr. Panetta. Very much. That is an extremely important 
region. We have to have a presence there in order to protect 
our own interests and to work with other countries in that 
area. In order to do that, there has to be respect for 
international law, and there has to be freedom of the seas so 
that we can do our job.
    I think it is important to have a relationship with China, 
but they also need to understand that by trying to advance in 
the China Sea, they can't interfere with our ability to 
navigate in that part of the world.
    Senator Webb. Or to unilaterally address sovereignty issues 
with respect to other countries?
    Mr. Panetta. That is correct.
    Senator Webb. Thank you.
    That also gets to the very important question of our basing 
system in this part of the world. I know Chairman Levin 
addressed this, and I heard your response to that. I think the 
timing of addressing these basing issues, particularly with 
respect to the Japanese, is vital. This has been going on for 
15 years, and we keep kicking the can down the road on it.
    We are not going to have stability in Asia if we don't have 
it in Northeast Asia. It is the only place in the world, as you 
well know, where the direct interests of Russia, China, Japan, 
the United States intersect, and the Korean Peninsula is right 
in the middle of all of that. I hope that we can work with you 
on the suggestions that Chairman Levin, Senator McCain, and I 
brought forward in order to have a timely solution of that 
basing issue.
    Mr. Panetta. No, I really appreciated the conversation we 
had in your office. I know this isn't--it is not an easy issue. 
That is why the can has been kicked down the road, I guess, all 
of these years because of the cost and the politics and the 
diplomatic problems involved with each of these decisions.
    I think it absolutely has to be addressed. We have to 
establish a stable situation there. We can't have a situation 
in which we are just playing this year to year. I think we need 
a long-term solution, and I really want to work with you and 
the chairman and others to try to find a solution.
    Senator Webb. I thank you for saying that. Because I do 
believe this is fixable and have spent many years thinking 
about this. I believe what we were able to come up with is at 
least the right approach, and it could be done in a timely way 
if we could get people to work with us on doing that.
    With respect to the situation in Libya, I take your point 
during your exchange with Senator McCain that it is the 
President's responsibility to ensure national security. At the 
same time, we have a situation where when the President 
unilaterally decides to begin a military operation and then 
continues it, where, clearly, I think as a former Member of 
Congress, you would agree that Congress needs to be involved in 
shaping downstream when something like that occurs?
    Let me say it another way. No one would disagree that with 
the President's authority to unilaterally order military force 
if the country was under attack, under imminent threat of 
attack, invoking the inherent right of self-defense, which is 
actually I think what we are doing in a lot of these strikes, 
even places like Yemen. Or if we are coming to the aid of an 
ally based on a treaty commitment, or we are defending 
Americans, protecting Americans who are in distress.
    But when you have a situation like in this case where the 
justification is humanitarian, you can see the potential for a 
very broad definition of what a humanitarian crisis is. Once 
that decision is made unilaterally by the President, it needs 
to be subject to the review and the direction of Congress, in 
my view.
    Mr. Panetta. Senator, it has been my experience, both as a 
Member of Congress and member of administrations, while 
obviously that constitutional power does rest with the 
President, that once those decisions are made, in order for 
those decisions to be sustained, that it is very important to 
work with Congress, seek the best advice and counsel of 
Congress, and hopefully to get Congress' support for those 
actions.
    Senator Webb. I did hear you agree with Senator McCain or 
to his comment that nobody is thinking about putting American 
ground forces in Libya?
    Mr. Panetta. That is correct.
    Senator Webb. I assume that also means after the fall of 
the Gaddafi regime?
    Mr. Panetta. As far as I know, no one is discussing any 
boots on the ground there--at any time.
    Senator Webb. The House passed a provision to that effect 
with 416 votes, and I have introduced a provision here. I just 
think we have our hands full, and it is not something we should 
be doing in the future in that part of the world.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    We are almost done, Director Panetta. I was listening to 
Senator Nelson's litany of the challenges ahead of you once you 
get confirmed, and I certainly intend to vote for that. I think 
you will get confirmed. I wondered, ``Hmm, why does he want to 
do that?'' But like everyone on this committee, I am very 
grateful that you are willing to do that and appreciate your 
patriotism and commitment to the country. Thank you very much 
for that.
    Mr. Panetta. Thank you, Senator.
    Senator Shaheen. I also very much appreciated the 
opportunity to sit down with you and your willingness to listen 
to some of our particular concerns in New Hampshire and was 
very pleased to hear that you are familiar with the work of the 
men and women at the Portsmouth naval shipyard and was pleased 
to hear your comments to Senator Collins about your commitment 
to address the backlog that both the shipyard and other 
shipyards around the country are facing.
    I was also very pleased that you were willing to listen to 
the good work that has been done by New Hampshire's National 
Guard deployment support program. Listening to your commitment 
today to better serve men and women after they get out of the 
military, I hope you will look at programs like New Hampshire's 
and some of the other States that have been so successful. 
Because not only are our National Guard and Reserves going to 
continue to play a greater role in our defense, but there is 
some very good data that shows how successful these programs 
have been.
    I think they serve as a good model for the rest of the 
Military Services to look at. I hope you will do that.
    Mr. Panetta. Thank you, Senator.
    Senator Shaheen. One of the reasons that we have been so 
successful in developing the technology for our national 
security and have given us really our superiority in terms of 
our military might around the world is because of our national 
defense technology sector. New England and New Hampshire have 
been a knowledge center for that defense technology sector, and 
I wonder if you could speak to how DOD or what DOD is currently 
doing to ensure that there is a sustained commitment to that 
defense technology sector so they will continue to be there as 
we need them in the future?
    Mr. Panetta. Senator, I haven't been fully briefed on all 
of the efforts to try to deal with preserving that kind of 
technology. But if I am confirmed, I just want you to know that 
I am a very strong believer that if we are going to have a 
strong defense in this country that we have to have industries 
here that are American. We have to have technology capabilities 
that are American. We have to be able to have a base of support 
in this country in order to maintain our defense systems.
    It doesn't mean that we don't deal with our allies. It 
doesn't mean that we try to negotiate agreements with them in 
certain areas. But if we are going to protect our national 
defense, we have to protect our industrial base. We have to 
protect our technological base. We have to be able to protect 
the capabilities that we need here in order to make that 
happen.
    Senator Shaheen. Thank you very much for that commitment. A 
piece of that is the research and development (R&D) needs, and 
obviously, DOD has been a very important part of ensuring that 
that R&D gets done. Given the budget constraints that we are 
facing, how do you see that affecting our ability to continue 
to ensure that the R&D that we need is done?
    Mr. Panetta. Again, I don't think we can do this job 
without investing in R&D as part of the process of making sure 
we are at the cutting edge for the future.
    I recognize that, obviously, as part of the effort to look 
at the entire budget in order to achieve savings that all of 
those areas will be looked at. But my view is that if we want 
to protect the weapons systems, if we want to protect our 
capabilities for the future, we have to be able to have good 
R&D at the same time.
    Senator Shaheen. Thank you.
    In talking to some of those New Hampshire and New England 
companies that are part of our national defense manufacturing 
base, one of the concerns that I often hear from them, because 
they are often doing commercial work as well as work for the 
military, is their frustration with our export control system. 
As I know you know, International Traffic in Arms Regulations 
restrictions are onerous. In many cases, they are out of date. 
They were really designed for a Cold War system that no longer 
exists, and I know that Secretary Gates has been a real 
proponent of addressing that system.
    I hope that you will be as committed, and I would ask how 
you see moving forward an agenda that updates our export 
control system in a way that both protects our national 
security, but also recognizes that we need to be competitive 
globally?
    Mr. Panetta. I want you to know, Senator, that I share 
Secretary Gates' attitude here. I think we have to be able to 
develop 21st century approaches to this kind of exchange in 
order for us to be able to make sure that the technologies we 
have are, in fact, technologies that we are working with others 
to assure and to have.
    Senator Shaheen. Thank you.
    I know earlier you were asked about Iraq and whether we 
would continue to stay in Iraq if we are asked. Like others, I 
have been concerned about increasing violence in Iraq, about 
the recent casualties. We just lost someone from New Hampshire 
in the attack over the weekend. I wonder if you could talk to 
what we need to do to keep our focus on the efforts in Iraq, 
and assuming that we are not asked to stay, how we will deal 
with drawing down the remaining troops that are there?
    Mr. Panetta. We are, at the present time, on track to 
withdrawing our forces by the end of 2011. But I think that it 
is clear to me that Iraq is considering the possibility of 
making a request for some kind of presence to remain there. It 
really is dependent on the prime minister and on the Government 
of Iraq to present to us what is it that they need and over 
what period of time in order to make sure that the gains that 
we have made in Iraq are sustained.
    I have every confidence that a request like that is 
something that I think will be forthcoming at some point.
    Senator Shaheen. My time has expired. I would like to 
explore that more later.
    Mr. Panetta. Okay.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Welcome, Mr. Director. I was going to say good morning, but 
I realize it is the afternoon. Thank you for your patience.
    I want to also, with everybody else on the committee, 
acknowledge your tremendous leadership, your personal 
friendship, and your willingness to take on yet another 
assignment, perhaps one of the biggest and most important in 
the Federal Government.
    I think you and I share a concern about the country's 
fiscal trajectory. Of course, Secretary of Defense Gates has 
pointed out that this is a key threat to our national security, 
as had the Chairman of the Joint Chiefs, Admiral Mullen.
    I know we are going to not support any cuts that will harm 
our capacity to secure our Nation or the well-being of our 
troops. But we are going to have to make some tough decisions. 
A broke country is a weak country. Conversely, a solvent 
country can be a strong country.
    You have had to deal with this at the agency. That is, how 
do you balance the needs and the resources? I think we have all 
said, hey, everything has to be on the table. But I am curious 
what your thoughts are about what the right size is of our 
military and how do we determine what our mission ought to be?
    I have two easy questions for you. What role do you believe 
that the American military should play in the world? As the 
senior military adviser-to-be to the President, when you are 
confirmed--I am going to be that optimistic--what would be a 
set of guidelines that you would use to recommend to the 
President whether military action is justified?
    Mr. Panetta. Obviously, I think that the United States 
exercises a unique role in the world by virtue of our 
leadership in the diplomatic arena, but also because of our 
military power, we are able to back that up. I think it is 
extremely important in today's world, where there are so many 
challenges and so many threats that we are confronting, that we 
maintain a strong military in order to deal with those kinds of 
threats.
    It is not only the fact that we are involved in wars, but 
clearly, we are facing increasing turmoil. We are facing 
terrorism. We are facing other challenges. In my view, the 
United States plays a very unique role in the world as far as 
providing the kind of leadership that tries to advance 
universal rights, a peaceful approach to dealing with the world 
that tries to advance good economic and political reform.
    That is a unique role for the United States, and I think we 
need to continue to send that message and to continue to exert 
that leadership. For that reason, I think having a strong 
military is essential to that larger role that the United 
States plays in today's world.
    We hope that others would work with us. We do, obviously, 
work with our allies. We work with NATO. We work with other 
nations. But there is no question in my mind that the United 
States is the fundamental leader right now in the world in a 
number of ways, and having the military strength to back up 
that kind of leadership is very important.
    With regards to how we approach the use of force, I think 
there are several important guidelines. Number one, what is the 
threat to our national interests? What is our capability to be 
able to respond, our military capability to respond to that 
kind of a threat? Have we exhausted all other remedies and 
options to the use of force? Lastly, what are the prospects to 
get the support of not only Congress, but the American people 
in that effort? I think all of those things are important 
considerations.
    Senator Udall. Thank you for those thoughts, Director 
Panetta. I think this will be a topic of ongoing conversations, 
obviously, as we work to consider how, if we need to 
reconfigure DOD and how we are prepared in a world of 
insurgencies and cybersecurity needs, satellite systems that 
are very important to all of us. There is a real change 
underway.
    I also hope that we will continue to do what we can to 
strengthen our relationship with China as it becomes more of an 
economic powerhouse. Hopefully, it will shoulder some of the 
responsibility on a worldwide basis because of its own self-
interest, frankly.
    Let me turn to energy. I think this has been an area of 
your interest as well. It is one of a deep concern, but I also 
think a great opportunity for us. Admiral Mullen has said 
saving energy saves lives. He recently pointed out that before 
we buy another airplane or a ship, we ought to look at what we 
can do to save the lives of our soldiers, marines, airmen, and 
sailors through our dependence on oil and other energy 
technologies.
    What are your thoughts on what DOD can do to continue to 
push alternative technologies and reducing our dependence on 
foreign oil?
    Mr. Panetta. Senator, this is an area that I want to learn 
a lot more about in terms of how the Defense Department is 
approaching this. At least from some of the briefings I have 
gotten, I think the Defense Department really is a leader in 
terms of trying to develop better energy efficiency, and we 
need to be because we use an awful lot of fuel.
    My hope is to continue those efforts and to work with you 
and others to try to determine what additional steps can we 
take, both in the development of weapons, the development of 
technologies, how we can better use clean energy, how we can 
better use some of the new forms of energy in order to reduce 
fuel costs at the Pentagon. But more importantly, in order to 
contribute to, hopefully, a cleaner environment.
    Senator Udall. I have just introduced a bill along with 
Congressman Giffords, I should say reintroduced a bill that we 
had put in the hopper in the last Congress, that would provide 
more direction to DOD. It has widespread support from 
particularly retired general officers and others, and I look 
forward to working with you and the chairman as we move to 
authorize the Defense Department's activities for 2012.
    You are right. DOD's energy bill is about $13 billion a 
year, and DOD uses more energy than most countries use, which 
stands out. But it is an opportunity. I don't see it as a 
burden. I see it as a real opportunity. I think you do, too.
    Mr. Panetta. I think it is.
    Senator Udall. I see my time has expired. But maybe for the 
record, I could ask one question and you could maybe give a 
brief response. Then if you want to expound on it for the 
record, that would be great.
    I know 2014 is our date for Afghanistan, the full handoff. 
I do worry about and you know all too well about the safe 
havens and the sanctuary they provide for the Taliban. If we 
can't reduce those safe havens or, at best, eliminate them, 
what are your thoughts on what that means for the hopes of a 
resolution of the situation in Afghanistan?
    Mr. Panetta. I think we can only win in Afghanistan if we 
can win in Pakistan by reducing those safe havens. I think the 
two go hand-in-hand. The ability to achieve stability in 
Afghanistan is dependent on whether or not we can limit and, 
hopefully, stop the transfer of terrorism across that border.
    Senator Udall. Thank you, Mr. Director. You and both the 
chairman are my heroes because you have both been sitting here 
for some 4 hours and with great patience and articulate 
answers.
    Thank you. I look forward to serving with you. Thank you.
    Mr. Panetta. Thank you.
    Chairman Levin. Thank you very much, Senator Udall.
    Let me just, before we break for lunch, try to clarify two 
parts of your testimony regarding the transition of security 
responsibility to the Afghan security forces.
    First, would you agree that security transition to Afghan 
security forces is to be completed by 2014, but that the 
process of transferring provinces and districts to an Afghan 
security force lead begins in July?
    Mr. Panetta. That is correct.
    Chairman Levin. That President Karzai in March identified 
the first group of areas to begin transition this year, 
including a number of identified provinces, and that has 
already been presented and approved by NATO?
    Mr. Panetta. That is correct.
    Chairman Levin. Next, my staff tells me that they have not 
been able to find any statement of Secretary Gates in which he 
specifies a number of U.S. troops that he believes should be 
withdrawn from Afghanistan starting in July. Are you aware of 
any statement by Secretary Gates identifying such a number, 
whether it is 3,000 to 5,000 or any other number?
    Mr. Panetta. I have discussed this with the staff at DOD, 
and they are not aware of any statement that he has made that 
has indicated a number that would be involved.
    Chairman Levin. At this point?
    Mr. Panetta. At this point.
    Chairman Levin. Thank you.
    It looks like it is about 5 after 1 p.m. Is that right? We 
will meet at 2:30 p.m. in a classified session.
    Thank you all. Thank you again for your testimony and for 
your service.
    [Whereupon, at 1:05 p.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Leon E. Panetta by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. It has been 25 years since the passage of Goldwater-Nichols 
legislation which has prepared the Department of Defense (DOD) to 
better meet today's challenges. At this time, I do not believe 
Goldwater-Nichols should be amended, but, if confirmed, I will continue 
to evaluate this issue and will work with the committee on this very 
important topic.

                   DUTIES OF THE SECRETARY OF DEFENSE

    Section 113 of title 10, U.S.C., provides that the Secretary of 
Defense is the principal assistant to the President in all matters 
relating to DOD. Subject to the direction of the President, the 
Secretary of Defense, under section 113, has authority, direction, and 
control over DOD.
    Do you believe there are actions you need to take to enhance your 
ability to perform the duties of the Secretary of Defense?
    Answer. Current authorities for the Secretary of Defense appear to 
be clear and appropriate.
    Question. What changes to section 113, if any, would you recommend?
    Answer. At this time, I have no recommendation for changes to 
section 113. My view may change based on the perspectives I may gain 
while serving in the position of Secretary of Defense, if confirmed.

                               PRIORITIES

    Question. If confirmed, you will confront a range of critical 
issues relating to threats to national security and ensuring that the 
Armed Forces are prepared to deal with these threats.
    What broad priorities would you establish, if confirmed, with 
respect to issues which must be addressed by DOD?
    Answer. The top priority of the Secretary of Defense is to ensure 
the security of the American people.
    We face a number of challenges: first, prevailing in the current 
conflicts in Iraq and Afghanistan and in the fight against al Qaeda; 
second, keeping weapons of mass destruction out of the hands of 
terrorists and rogue nations; third, preparing to counter future 
military threats; fourth, preserving the finest fighting force in the 
world and taking care of servicemembers and their families; and fifth, 
continuing the reforms DOD's leadership has initiated which will be 
crucial in this time of budget constraints.

                  NATIONAL SECURITY BUDGET REDUCTIONS

    Question. The President has called for $400 billion in reductions 
to national security spending over a 10-year period starting in 2013, 
and has asked Secretary Gates to lead a review to provide 
recommendations on where to make those cuts.
    What is your understanding of the current status of that review?
    Answer. Secretary Gates has discussed with me his overall approach 
for the Comprehensive Review. It is my understanding that the process 
initiated focuses principally on driving program and budget decisions 
from choices about strategy and risks. Such a strategy-driven approach 
is essential to ensuring that we preserve a superb defense force to 
meet national security goals, even under fiscal pressure.
    Question. What role do you expect to play, if confirmed, in guiding 
the review and in determining what cuts, if any, should be made to the 
defense budget?
    Answer. If confirmed, I expect to play a large role in the 
Comprehensive Review and to have it completed in the fall.
    Question. Do you believe that a national security spending 
reduction of this magnitude can be accomplished without significant 
adverse impact on our national security?
    Answer. If confirmed, I will work to make disciplined decisions in 
ways that minimize impacts on our national security. But it must be 
understood that a smaller budget means difficult choices will have to 
be made.
    Question. If confirmed, how will you prioritize the objectives of: 
making needed investments in the future force, addressing pressing 
requirements for completing the mission in Iraq and Afghanistan, 
resetting of the force, meeting ongoing operational commitments across 
the globe, and achieving the level of savings proposed by the 
President?
    Answer. From my years of service in the public sector, I recognize 
the importance of balancing immediate and future needs. In national 
security matters, such a balance is essential to keeping America safe 
both today and tomorrow. Decisions on budget must be carefully made so 
that none of the listed objectives is compromised.
    If confirmed, I will work with both DOD's civilian and military 
leaders to seek the right balance and I will not hesitate to provide my 
views on the potential consequences of proposed future changes in the 
DOD's budget.

                            CHAIN OF COMMAND

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Section 
163(a) of title 10 further provides that the President may direct 
communications to combatant commanders be transmitted through the 
Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. Based on my understanding of the existing authorities and 
the practice I have personally observed while Director of the CIA, I 
believe there is currently a clear and effective chain of command. If 
confirmed as Secretary of Defense, I will work to ensure that the chain 
of command continues to be clear and effective.
    Question. In your view, do these provisions enhance or degrade 
civilian control of the military?
    Answer. I believe these provisions enhance civilian control of the 
military.
    Question. In your capacity as the Director of the Central 
Intelligence Agency, you were reported to have been in charge of the 
recent operation against Osama bin Laden, an operation using military 
forces of DOD, presumably under the authorities in title 50, U.S.C.
    Are there circumstances in which you believe it is appropriate for 
U.S. military forces to be under the operational command or control of 
an authority outside the chain of command established under title 10, 
U.S.C.?
    Answer. I believe the chain of command established by title 10 is 
the appropriate mechanism for command and control of military 
operations. Without commenting on the bin Laden operation in 
particular, I will state that in general there are instances in which 
military capabilities are temporarily made available to support an 
activity of a non-DOD U.S. Government department or agency. In those 
circumstances, it is appropriate for the head of such department or 
agency to direct the operations of the element providing that military 
support while working with the Secretary of Defense. In such 
situations, the President remains at the top of the chain of command 
and at all times has overall command and responsibility for the 
operation. The military units supporting such an operation are still 
governed by the laws of armed conflict. Military personnel remain 
accountable to the military chain of command, including the Uniform 
Code of Military Justice.
    Question. Can you explain the chain of command for U.S. military 
forces in the operation against bin Laden, and what role, if any, the 
Director of the Central Intelligence Agency and the Secretary of 
Defense each had in that chain of command?
    Answer. I cannot comment publicly on the chain of command for the 
bin Laden operation, in particular. In general, see my answer above.
    Question. Please explain the pros and cons of utilizing U.S. 
military personnel for missions under the authorities contained in 
title 50, United Sates Code.
    Answer. Non-DOD Federal departments and agencies may, in carrying 
out their duties, occasionally require support that only the U.S. Armed 
Forces can provide. It is therefore sometimes preferable to make an 
appropriate military capability temporarily available to support the 
operations of other departments and agencies. A significant advantage 
of doing so is that it permits the robust operational capability of the 
U.S. Armed Forces to be applied when needed. A potential disadvantage 
is that the department or agency receiving the support may not be 
specifically organized or equipped to direct and control operations by 
military forces.
    Question. If the reports mentioned above are accurate, please 
describe the authorities and agreements which are in place to allow 
U.S. military personnel to carry out missions under the authorities 
contained in title 50, U.S.C. Do you believe any modifications to these 
authorities are necessary?
    Answer. As noted above, consistent with title 50 of the U.S.C., the 
President may authorize departments, agencies, or entities of the U.S. 
Government to participate in or support intelligence activities. I 
cannot comment publicly on any specific arrangements in this regard. As 
stated above, military personnel in support of any such activities 
remain subject to the laws of armed conflict and the Uniform Code of 
Military Justice while operating under the direction of the head of a 
non-DOD Federal department or agency. I believe that existing 
authorities are sufficient to facilitate DOD's providing appropriate 
support under title 50 while ensuring necessary oversight.
    Question. Please explain your views on the preferred chain of 
command structure for counter terrorism operations conducted outside of 
Iraq and Afghanistan.
    Answer. My view is that the chain of command established under 
title 10 is appropriate for command of U.S. military operations, 
regardless of the location. The determination of whether a military 
counterterrorism operation is appropriate will depend on the nature of 
the contemplated operation and the circumstances specific to the time 
and place of that operation.

       ADVICE OF THE SERVICE CHIEFS AND THE COMBATANT COMMANDERS

    Question. Section 151 of title 10, U.S.C., provides, in part, that 
the Chairman of the Joint Chiefs of Staff is the principal military 
adviser to the President, the National Security Council, and the 
Secretary of Defense and that if any member of the Joint Chiefs submits 
to the Chairman advice or an opinion, in disagreement with, or advice 
or an opinion in addition to, the advice presented by the Chairman, the 
Chairman shall present that advice or opinion at the same time he 
provides his own advice to the President, the National Security 
Council, and the Secretary of Defense.
    Answer. Section 163 of title 10, U.S.C., provides that the Chairman 
of the Joint Chiefs of Staff serves as the spokesman for the combatant 
commanders, especially on the operational requirements of their 
commands.
    Question. What changes in law, if any, do you think may be 
necessary to ensure that the views of the individual Service Chiefs and 
of the combatant commanders are presented and considered?
    Answer. At this time, I do not recommend any changes to the law. If 
confirmed, and after I have been in office for a sufficient time to 
determine if changes are advisable, I will recommend changes as 
appropriate or necessary.
    Question. Do you believe the Chief of the National Guard Bureau 
should be a member of the Joint Chiefs of Staff?
    Answer. No. The Chief of the National Guard Bureau is now a 4 star 
general and attends Joint Chiefs of Staff meetings and provides 
invaluable advice. Members of the Guard are members of the uniformed 
services and adding its Chief to the Joint Chiefs of Staff would 
introduce inconsistencies among its members and will create the 
impression that the National Guard is a separate military service.

             GOLDWATER-NICHOLS FOR THE INTERAGENCY (POLICY)

    Question. Several groups and individuals have been calling for a 
Goldwater-Nichols Act for the entire Federal Government. They argue 
that the U.S. and allied militaries can prevail on the battlefield but 
that the global war on terror requires a concerted effort by a host of 
U.S. agencies.
    What are your views on the merits of instituting a Goldwater-
Nichols Act for the entire Federal Government?
    Answer. In the 25 years since Goldwater-Nichols much has changed. 
In the post-September 11th era, there have been significant benefits 
due to increased unity of effort and interagency cooperation. Civilian-
military collaboration has improved, and our military commanders expect 
to operate in a coordinated and joint, multi-service environment. 
Diplomats, development experts, intelligence analysts, and law 
enforcement must work together in today's complex operations.
    At this time, I do not know that instituting such a change across 
the entire Federal Government is needed. However, there may be 
additional ways to develop more effective and inclusive approaches to 
our national security challenges that do not require legislation.
    If confirmed, I intend to reiterate to all civilian and military 
personnel in DOD the important role each interagency partner plays in 
supporting our Nation's security.

                         USE OF MILITARY FORCE

    Question. The question as to whether and when U.S. forces should 
participate in potentially dangerous situations is one of the most 
important and difficult decisions that the national command authorities 
have to make. Prior Secretaries of Defense and Chairmen of the Joint 
Chiefs of Staff have proposed criteria to guide decisionmaking for such 
situations.
    What factors would you consider in making recommendations to the 
President on the use of force?
    Answer. If confirmed, I would consider many of the same factors 
that previous Secretaries of Defense have evaluated in their 
recommendations to the President on the use of force, including the 
threat to our vital interests, the ability to employ non-military 
methods to respond to the threat, our capability to defeat that threat 
and improve our strategic situation through the use of military force, 
and the prospects for sustained public support for military action.
    Question. What circumstances should pertain for you to recommend 
that the President employ preemptive force?
    Answer. As the 2010 National Security Strategy discusses, military 
force, at times, may be necessary to defend our country and allies or 
to preserve broader peace and security, including by protecting 
civilians facing a grave humanitarian crisis.
    While the use of force is sometimes necessary, if confirmed, we 
will continue to exhaust other options before war whenever we can, and 
carefully weigh the costs and risks of action against the costs and 
risks of inaction. When force is necessary, if confirmed, we will 
continue to do so in a way that reflects our values and strengthens our 
legitimacy, and we will seek broad international support, working with 
such institutions as NATO and the U.N. Security Council.
    The United States must reserve the right to act unilaterally if 
necessary to defend our Nation and our interests, yet we must also seek 
to adhere to standards that govern the use of force.
    Question. What degree of certainty do you believe is necessary 
before the United States would use preemptive force?
    Answer. I believe the use of preemptive force should be based on 
the strongest evidence of the need. It is a decision that must not be 
taken lightly.
    Two years as CIA Director has made me realize that intelligence is 
often ambiguous. I believe the men and women in the Intelligence 
Community do their best to get the most reliable intelligence possible. 
Still, we need to be aware of the caveats that come with intelligence 
products. We need to continue to ask hard questions about the 
information presented to policymakers.
 department of defense and department of veterans affairs collaboration
    Question. Secretary of Defense Gates and Secretary of Veterans 
Affairs Shinseki have pledged to improve and increase collaboration 
between the respective departments to support military servicemembers 
as they transition to veteran status, in areas of health and mental 
health care, disability evaluation, and compensation.
    If confirmed, what role would you expect to play in ensuring that 
DOD and the Department of Veterans Affairs achieve the administration's 
objectives in DOD and VA collaboration?
    Answer. I understand significant improvements have been made in 
DOD-VA collaboration in the last few years. If confirmed, I will 
continue the efforts made by Secretary Gates, and look forward to 
working with Secretary Shinseki to accelerate current timelines. If 
confirmed, I will ensure that DOD continues to work closely with VA to 
support servicemembers and their families in all facets of making a 
seamless transition to veteran status will remain a top priority.

                        DISABILITY SEVERANCE PAY

    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act for Fiscal Year 2008, enhanced 
severance pay and removed a requirement that severance pay be deducted 
from VA disability compensation for servicemembers discharged for 
disabilities rated less than 30 percent incurred in the line-of-duty in 
a combat zone or incurred during the performance of duty in a combat-
related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on the existing definition of 
a combat-related disability contained in 10 U.S.C. 1413a(e)). Rather 
than using the definition intended by Congress, DOD adopted a more 
limited definition of combat-related operations, requiring that the 
disability be incurred during participation in armed conflict.
    If confirmed, would you review the interpretation of this provision 
by the Department's subject matter experts and reconsider the 
Department's definition of combat-related operations for purposes of 
awarding enhanced severance pay and deduction of severance pay from VA 
disability compensation?
    Answer. I understand this matter is currently being reviewed. If 
confirmed, I will continue that review and ensure that any policy 
change, if warranted, meets the intent of Congress.

                       HOMOSEXUAL CONDUCT POLICY

    Question. The ``Don't Ask, Don't Tell Repeal Act of 2010,'' enacted 
on December 22, 2010, provides for the repeal of the current DOD policy 
concerning homosexuality in the Armed Forces, to be effective 60 days 
after the Secretary of Defense has received DOD's comprehensive review 
on the implementation of such repeal, and the President, Secretary, and 
Chairman of the Joint Chiefs of Staff certify to the congressional 
defense committees that they have considered the report and proposed 
plan of action, that DOD has prepared the necessary policies and 
regulations to exercise the discretion provided by such repeal, and 
that implementation of such policies and regulations is consistent with 
the standards of military readiness and effectiveness, unit cohesion, 
and military recruiting and retention.
    What is your view on repealing the current DOD policy?
    Answer. I support the Don't Ask, Don't Tell Repeal Act of 2010 and 
the certification process defined in the law.
    If confirmed, and in the event Secretary Gates does not sign such a 
certification prior to his departure from office, I will work closely 
with the Joint Chiefs of Staff to assess whether the elements for 
certification in the law are met before signing it myself.

           PROTECTION OF U.S. FORCES AGAINST INTERNAL THREATS

    Question. On November 5, 2009, a gunman opened fire at the Soldier 
Readiness Center at Fort Hood, TX, killing 13 people and wounding or 
injuring 43 others. A DOD review of the attack released in January 2010 
concluded that the Department was poorly prepared to defend against 
internal threats, including radicalization among military personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. I understand that the Fort Hood review released by DOD in 
August 2010 included 79 recommendations on how to improve personnel 
policies, force protection, emergency response and mass casualty 
preparedness, and support to DOD healthcare providers. I am told that 
DOD has completed implementation of half of these recommendations.
    If confirmed, I intend to review all the lessons learned, 
recommendations for improvement, and progress made to date and work 
closely with Members of Congress to ensure that DOD is prepared to 
defend against internal threats, including radicalization among DOD's 
military and civilian personnel.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. I understand that the findings and recommendations of the 
Fort Hood Review are the foundation of DOD's current strategy and 
leadership and accountability are key. If confirmed, I will review this 
strategy and how it has been implemented, seek the advice of DOD's 
civilian and military leadership, and consult with Congress to ensure 
that DOD implements the most effective policies to prevent and mitigate 
such threats in the future.

                          RELIGIOUS GUIDELINES

    Question. The Independent Review Related to the Tragedy at Fort 
Hood observed that ``DOD policy regarding religious accommodation lacks 
the clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization.'' Recommendation 2.7 of the Final 
Recommendations urged the Department to update policy to clarify 
guidelines for religious accommodation and Recommendation 2.8 urged the 
Department to task the Defense Science Board to ``undertake a multi-
disciplinary study to identify behavioral indicators of violence and 
self-radicalization . . . .''
    What is your view of these recommendations?
    Answer. It is my understanding that the Fort Hood Follow-on Review 
prepared an implementation plan in response to both of these 
recommendations. If confirmed, I will review that report and the 
progress that has been made to ensure DOD policies, programs, and 
procedures appropriately accommodate the free exercise of religion 
while effectively protecting our servicemembers from harm.
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. It is my understanding that the military places a high 
value on the rights of servicemembers to observe their respective 
religious faiths and that policies and programs reflect this.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. I understand each Religious Ministry Professional has 
committed to functioning in a pluralistic environment and to 
supporting, both directly and indirectly, the free exercise of religion 
by all members of the Military Services, their family members, and 
other persons authorized to be served by the military chaplaincies. If 
confirmed, I will review the relevant policies, seek the advice of the 
military leadership, and consult with Congress to ensure that DOD 
appropriately accommodates the free exercise of religion.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I understand current policy appears to strike the proper 
balance by allowing chaplains to voluntarily participate, or not 
participate, in settings which conflict with their faith traditions, 
while also ensuring chaplains performing in an interfaith setting, such 
as an official dinner or interfaith memorial service, are mindful of 
the requirement for inclusiveness. If confirmed, I will monitor these 
policies and practices.
    Question. If confirmed, will you work to ensure that a scientific 
fact-based approach to understanding radicalization will drive the 
Department's relevant policies?
    Answer. I understand DOD has commissioned a Defense Science Board 
study on violent radicalization and plans to commission two additional 
clinical studies to identify any potential indicators of violent 
behavior in military personnel. The results of these studies will 
inform DOD's policies and programs on radicalization. If confirmed, I 
intend to ensure that DOD continues to rely on a scientific, fact-based 
approach to countering radicalization and protecting our force.
    Question. Current policy in the Department gives discretion to 
military leaders to decide whether requests to waive uniform and 
appearance standards should be granted based on religious beliefs. The 
Department has submitted a legislative proposal that would clearly 
exempt the armed services from the requirements of the Religious 
Freedom Restoration Act.
    In your view, do DOD policies appropriately accommodate religious 
practices that require adherents to wear particular articles of faith?
    Answer. I understand the important and delicate balance that must 
be struck between accommodating religious practices that require 
adherents to wear particular articles of faith and maintaining the 
military's uniform grooming and appearance standards. If confirmed, I 
will work with the leaders of the military services to achieve an 
appropriate balance between maintaining the military's uniform grooming 
and appearance standards and approving requested religious 
accommodations.

                      MUSLIMS IN THE U.S. MILITARY

    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. I recognize the events related to the attack at Fort Hood 
are first and foremost a tragedy for all involved. While it is possible 
that such a tragic act could spur harassment and violence as a means of 
retaliation, I am informed that military leaders and supervisors at all 
levels take precautions to prevent such occurrences and maintain good 
order and discipline in the force. No form of harassment will be 
tolerated.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. If confirmed, I would advocate open communications, 
decisive action on the part of military leaders and supervisors, and 
command emphasis on the military standard for maintaining good order 
and discipline. More specifically, this would include safeguarding the 
rights of servicemembers by exercising the established procedures and 
processes for addressing all indications of harassment and complaints. 
If confirmed, I would review the effectiveness of these feedback 
systems, and take measures to improve them, as appropriate.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assault, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
combat areas of operation and at home stations are still being 
reported. Victims and their advocates claim that they are victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate treatment for the victim. They assert that their command 
fails to respond appropriately with basic medical services and with an 
adequate investigation of their allegations followed by a failure to 
hold assailants accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential or restricted reporting, to be 
effective?
    Answer. Sexual assault has no place in DOD--and it will not be 
tolerated. DOD's zero tolerance policy on sexual assault is the right 
policy. The Chairman of the Joint Chiefs of Staff, the Joint Chiefs, 
and the Service Secretaries are continuously and directly engaged in 
emphasizing the importance of addressing sexual assault. DOD is deeply 
committed to broad and focused improvements in how it prevents and 
responds to sexual assault. Advancements in development of policies and 
programs, such as hiring additional investigators, field instructors, 
prosecutors, and lab examiners have been made. But there is still work 
to do to integrate and continue to improve our efforts across DOD and 
the Services. If confirmed, I would continue to ensure DOD is committed 
to addressing sexual assault in a comprehensive manner.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedure has been put into operation?
    Answer. I have not been informed of any specific problems in the 
implementation of the restricted reporting option. It is my 
understanding that restricted reporting allows victims who wish to 
remain anonymous to come forward and obtain the support they need 
following an assault without being identified. I believe that the most 
important concern in reviewing the reporting procedure should be to 
ensure that victims are coming forward. If confirmed, I will review 
DOD's program to gain a clear picture of progress and areas for future 
improvement in sexual assault reporting procedures.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults against contractor personnel?
    Answer. Sexual assault against anyone is unacceptable in any 
location. I do not have enough information to make a comprehensive 
assessment at this time, but it is my understanding that if any of our 
deployed servicemembers, civilians, or contractors is assaulted, he or 
she will receive appropriate and responsive support and care. It is 
also my understanding that individuals who commit sexual assault are 
appropriately punished. If confirmed, I will continue to ensure DOD is 
committed to addressing sexual assault in a comprehensive manner across 
the Services in all locations. There is no tolerance in DOD for sexual 
assault in any location or for any personnel who serve in DOD.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. DOD is committed to addressing sexual assault in a 
comprehensive, integrated and uniform manner. It is my understanding 
that all Services have been directed to establish guidelines for a 24-
hour, 7 day a week sexual assault response capability for all 
locations, including deployed areas. I also understand that the 
Services recently enhanced their resources for investigating and 
prosecuting sexual assault cases. While, I cannot make a specific 
assessment at this time, if confirmed, evaluating the adequacy and 
efficacy of training and resources allocated to the Services for sexual 
assault investigation will be a priority.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. DOD's policies emphasize the command's role in effective 
response to sexual assault. DOD has taken action to provide training 
for commanders and to ensure adequate training and resources for 
prosecutors and investigators. I understand that DOD's policies seek to 
balance victim care and appropriate command action against offenders, 
with one of the aims being to build the victim's confidence to assist 
in an investigation. If confirmed, I will ensure accountability, 
appropriately balanced with victim care, remains an important focus of 
DOD's sexual assault prevention and response efforts.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. I believe that sexual assault has no place in the Armed 
Forces, and that DOD currently has a zero tolerance policy. I 
understand DOD has assigned a General/Flag Officer with operational 
experience to provide direct oversight of the Sexual Assault Prevention 
and Response Program office. This senior leader will facilitate and 
integrate a comprehensive and uniformed approach to sexual assault 
prevention and response policy across DOD. If confirmed, I will 
continue to make sexual assault prevention and response a priority for 
DOD and will work closely with the Secretaries of the Military 
Departments and the Chiefs of the Military Services to ensure that DOD 
maintains senior leadership focus on this issue.
     mobilization and demobilization of national guard and reserves
    Question. In support of the current ongoing conflicts, the National 
Guard and Reserves have experienced their largest and most sustained 
employment since World War II. Numerous problems have arisen over time 
in the planning and procedures for mobilization and demobilization, 
e.g., inadequate health screening and medical response to service-
connected injuries or illnesses, antiquated pay systems, limited 
transition assistance programs upon demobilization, and inefficient 
policies regarding members of the Individual Ready Reserve. Reserve 
Force management policies and systems have been characterized in the 
past as ``inefficient and rigid'' and readiness levels have been 
adversely affected by equipment shortages, cross-leveling, and reset 
policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. I understand there have been many changes made in policies 
governing the utilization of the Guard. There is now a 180-day 
notification prior to mobilization, dwell ratio standard of no more 
than 1 year mobilized for 5 years not mobilized, and Guard and 
reservists can only be involuntary activated for 1 year.
    These changes have improved morale by providing a predictable cycle 
of active duty.
    A key problem that remains is there are over 30 different duty 
statuses for Guard and Reserve personnel. This diversity of duty status 
is cumbersome and results in mobilization and de-mobilization delays.

              MEDICAL AND DENTAL READINESS OF THE RESERVES

    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. In order to fully assess the capability of the Reserve 
Force, it is critical to measure and report medical and dental 
readiness in a standardized manner. It is my understanding that over 
the past several years, small, but steady improvements have been made 
across the Services, but there is more work to do in confirming the 
medical and dental readiness of the entire Reserve Force.
    Medical and dental readiness is tracked through standardized 
calculations each quarter. Currently, the medical readiness achievement 
goal is 75 percent and DOD is at 63 percent. The dental readiness 
achievement goal is 85 percent, and DOD has met that goal.
    While progress can be seen, the medical and dental readiness of the 
Reserve component remains a priority if I am confirmed.
    Question. How would you improve upon the Department's ability to 
maintain a healthy and fit Reserve component?
    Answer. It's my understanding that DOD continues to pursue new and 
improved opportunities to provide flexible options for the Guard and 
Reserve to improve their overall readiness.
    Producing and maintaining a healthy and fit Reserve component 
requires more than access to health care--it also requires command 
emphasis and individual accountability.
    Recently, the Army Reserve approved and funded two medical/dental 
readiness days per soldier starting in fiscal year 2010.
    If confirmed, I will work with the Services to incorporate the 
findings and recommendations from the executive-level DOD Prevention, 
Safety and Health Promotion Council (PSHPC) recently created to advance 
health and safety promotion and injury/illness prevention policy 
initiatives to address readiness requirements developed from evidence-
based research.

                               DWELL TIME

    Question. While dwell time is improving as our forces draw down in 
Iraq, many Active Duty military members are still not experiencing the 
dwell time goal of 2 years at home for every year deployed.
    In your view, when will the Active component dwell time goal be 
met?
    Answer. I understand that the Navy, Air Force and Marine Corps, on 
average, are meeting or exceeding DOD's dwell time goal of 1:2 for the 
Active component. The Army is now averaging 1:1 but expects to be 1:2 
by October 2011. If confirmed, I will continue to monitor this issue 
closely.
    Question. When will dwell time objectives be met for the Reserve 
components?
    Answer. I understand Reserve component dwell time is improving, but 
has not reached DOD's dwell time goal of 1 year of active duty and 5 
years at home, or 1:5. If confirmed, I will continue to work toward the 
goal of a 1:5 dwell time ratio for the Reserve component.

                        ACTIVE-DUTY END STRENGTH

    Question. Secretary Gates announced this year that the Army would 
reduce its end strength by 22,000 through fiscal year 2013, including 
7,000 in fiscal year 2012. This end strength was part of the temporary 
increase authorized in 2009 and was intended to enable the Army to 
cease relying on ``stoploss'' and to make up for a growing population 
of non-deployable soldiers. Beginning in fiscal year 2015, depending on 
conditions on the ground, the Army and Marine Corps plan to reduce 
their permanent end strength and force structure by 27,000 soldiers and 
at least 15,000 marines, respectively.
    Do you agree with this Active-Duty end strength reduction plan?
    Answer. If confirmed, I will review the plan, but it is my 
understanding, that based upon what we know today, and the well 
reasoned assumptions that have been made, that the current plan strikes 
a prudent balance between serving operational needs and ensuring the 
funds available for recapitalization which are critical to future 
readiness. However, I know that ensuring that commanders have the right 
numbers and right kinds of volunteers to perform their mission is of 
critical importance. As future national security circumstances could 
change, if confirmed, our plan will change accordingly.
    Question. What is your view of how these planned end strength 
reductions will affect dwell time ratios?
    Answer. The Army and Marine Corps end strength reductions, planned 
for fiscal year 2015, are based on the assumption of a future draw-down 
in Afghanistan. If this assumption holds true, the dwell ratio of 1:2 
should not be affected.
    Question. What effect would inability to meet dwell time objectives 
have on your decision to implement the planned end strength reductions?
    Answer. If confirmed, I will take into consideration dwell time 
objectives and our ability to meet competing strategic objectives 
before implementing the planned end strength reductions.
    Question. In your view, can the Army accelerate to 2012 more of its 
planned reduction in its temporary over-strength without an adverse 
impact on national security?
    Answer. I am unable to express an opinion on this issue at this 
time. If confirmed, I will work closely with the Army on appropriate 
end strength.
    Question. What would be the effect on dwell time of accelerating 
the Army's force reduction plan?
    Answer. That would depend on the Army's deployment footprint and 
the period of acceleration. However, I would anticipate that the Army 
may not be able to achieve the dwell ratio goal of 1:2 on its current 
schedule. This is an issue that I will need to evaluate, if confirmed.
    Question. What are the assumptions regarding ``conditions on the 
ground'' that will allow for the planned reductions beginning in 2015 
to occur on time?
    Answer. Generally speaking, I would consider our progress against 
the established security objectives at the time. I would solicit the 
advice of DOD's senior military and civilian leaders to inform my 
judgment on such decisions.
    Question. The Navy and Air Force have requested congressional 
authorization of force management tools to avoid exceeding end strength 
limits and save money.
    In your view, what tools do the Department and Services need to get 
down to authorized strengths in the future, and which of these require 
Congressional authorization?
    Answer. I understand that some of the authorities used during 
previous force reductions have expired or are expiring soon. DOD is 
seeking to renew these authorities and is requesting new legislation to 
size and shape the force. My view is that DOD should make maximum use 
of voluntary authorities; however, great care should be taken to ensure 
those who leave are not going to be needed in the near term. If 
confirmed, I will study this issue closely and rely on the advice of 
both civilian and military professionals at the Department.

                          RECRUITING STANDARDS

    Question. Recruiting highly qualified individuals for military 
service during wartime in a cost-constrained environment presents 
unique challenges. The Army has been criticized in past years for 
relaxing enlistment standards in tough recruiting environments with 
respect to factors such as age, intelligence, weight and physical 
fitness standards, citizenship status, tattoos, and past criminal 
misconduct. On the other hand, as the Deputy Chief of Staff of the 
Army, G-1, recently testified, less than 25 percent of all 17-24 year 
olds are eligible to enlist, primarily due to physical and educational 
requirements.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. From my understanding, the current enlistment qualification 
standards are well-defined and have stood the test of time. They are 
driven by the need to provide the Services with men and women who are 
prepared to adapt to the rigors of military life and meet performance 
requirements. To that end, the Services carefully screen applicants, 
who come from all walks of life. The traditional high school diploma is 
the best single predictor of attrition. Some standards may change over 
time. Medical standards have been revised, for example, as pre-
enlistment treatments result in improved outcomes.
    Question. In your view, is there any way to increase the pool of 
eligible enlistees without sacrificing quality?
    Answer. From my understanding, the Services are exploring ways to 
improve our ability to predict attrition. The Services may be able to 
augment their screening procedures by incorporating other measures, 
such as personality, to identify applicants who are likely to adapt 
well to the military. If confirmed, I will work with the Services to 
continually find new ways to recruit.
    Question. Are there any enlistment requirements or standards that 
are overly restrictive or which do not directly correlate to successful 
military service?
    Answer. I am not aware that DOD assesses that military enlistment 
standards are overly restrictive. The Services employ fitness, 
adaptability, and aptitude standards which correlate to the physical, 
disciplined, regulated lifestyle and cognitive demands needed to 
succeed in the Armed Forces.
    Question. Do you believe that current policies defining three tiers 
of high school diploma credentials, aimed at minimizing attrition 
during the initial enlistment term, should be retained?
    Answer. My understanding is the Services track the attrition rates 
of military recruits, by a variety of credential types, and traditional 
high school diploma graduates have lower rates of attrition than any 
other type of credential holder.

                         WOMEN IN THE MILITARY

    Question. The Navy has opened service on submarines to women, the 
Marine Corps recently expanded service opportunities for women in 
intelligence specialties, and the Army is reviewing its assignment 
policy for female soldiers. The issue of the appropriate role of women 
in the Armed Forces is a matter of continuing interest to Congress and 
the American public.
    Do you believe additional specialties should be opened up for 
service by women?
    Answer. It is my understanding DOD believes it has sufficient 
flexibility under current law to make appropriate assignment policy for 
women. DOD will continue to monitor combat needs as Services recommend 
expanding combat roles for women and notify Congress accordingly as 
required by statute (10 U.S.C., Sec. 652 and/or Sec. 6035). Any 
decision regarding opening additional specialties for service by women 
should be based on our obligation to maintain a high state of mission 
readiness of our All-Volunteer Force.
    Question. Do you believe any changes in the current policy or 
legislation regarding women in combat are needed or warranted?
    Answer. I understand DOD policies and practices that restrict 
assigning female servicemembers are currently under review per section 
535 of the National Defense Authorization Act for Fiscal Year 2011. If 
confirmed, I will take my responsibility to thoroughly review any 
proposed policy change and ensure changes to existing policy move 
forward after appropriate notice to Congress.

                      RISING COSTS OF MEDICAL CARE

    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April, 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.'' The 
administration has proposed health care efficiencies to save nearly 
$8.0 billion through 2016.
    Do you agree with the proposed health care efficiencies?
    Answer. As they have been described to me, I believe that the 
proposed health care efficiencies are sensible efforts to control DOD's 
health care costs while maintaining the same level of care. I also 
believe the modest increases in beneficiaries' cost shares are 
reasonable.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. While the proposals included in the fiscal year 2012 
President's budget are a significant first step, I believe that we need 
to continue to explore all possibilities to control the costs of 
military health care. In the long term, the promotion of healthy life 
styles and prevention among our beneficiaries is one way to help reduce 
the demand for health services.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. I understand that even with the estimated savings from the 
health care efficiencies proposed in the fiscal year 2012 budget, the 
cost of the Military Health System continues to increase as a 
percentage of the DOD budget and will exceed 10 percent of the budget 
in just a few years.
    During a period when there is heavy downward pressure on all 
Federal spending, including defense spending, we must make smart 
choices that permit us to maintain a balance between personnel benefits 
and funding for equipment and readiness.
    If confirmed, one of my highest priorities would be to ensure that 
DOD provides quality care, and it does so in a way that provides the 
best value for our servicemembers and their families, as well as the 
American taxpayer.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. I cannot make specific recommendations at this time. If 
confirmed, I would work closely with the health care leadership in DOD 
to examine every opportunity to ensure military beneficiaries are 
provided the highest quality care possible while managing cost growth.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. In addition to health care costs, personnel and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget.
    What actions do you believe can and should be taken, if any, to 
control the rise in personnel costs and entitlement spending?
    Answer. I am aware that an increasing portion of DOD's limited 
resources are devoted to personnel-related costs.
    I understand there have been many incremental adjustments to 
military pay and benefits over the years; however, much of the military 
compensation system remains rooted in structures established 
generations ago. If we are going to manage costs, I believe everything 
must be on the table. It may be appropriate to conduct a comprehensive 
review of the military pay and benefits structure to determine where 
costs can be contained.
    I believe that it may be possible to restructure our military 
benefits in a way that reduces costs, but any such effort must continue 
to attract and support our men and women in uniform and their families 
in a wide variety of situations.
    Question. In your view, can the Department and the Services 
efficiently manage the use of bonuses and special pays to place high 
quality recruits in the right jobs without paying more than the 
Department needs to pay, or can afford to pay, for other elements of 
the force?
    Answer. I understand recruiting and retention bonuses are cost-
effective tools to achieve DOD's personnel strength and experience 
objectives. However, we must continually monitor these tools to ensure 
they are being used efficiently as well as effectively. A review of the 
utilization and efficacy of bonuses should certainly be part of any 
comprehensive review of the military pay and benefits structure.

                          MILITARY RETIREMENT

    Question. The 10th Quadrennial Review of Military Compensation 
(QRMC) proposed a new defined benefit retirement plan that more 
resembles the benefits available under the Federal Employee Retirement 
System than the current military retirement benefit; increasing TRICARE 
fees for retirees; and the adoption of dependent care and flexible 
spending accounts for servicemembers. The head of a Defense Business 
Board Task Force has criticized military benefits as ``GM-style 
benefits'' describing the military retirement system as a ``pre-
volunteer force retirement system'' and criticizing ``taxpayer-
subsidized grocery chains and low out-of-pocket healthcare costs''.
    What is your view of the adequacy of the current military 
retirement benefit?
    Answer. I understand that the military retirement system was 
created in an earlier era and, in general, accomplishes the purpose for 
which it was designed; to provide a strong incentive to attain 20 years 
of service and then to leave shortly thereafter. To maintain the right 
military force structure, the comprehensive mix of pay and benefits, 
which includes military retirement, needs to be adequate. However, over 
time, the world has changed and private-sector compensation practices 
have changed, but the military retirement system has remained 
essentially the same. I believe it may be appropriate to also review 
the military retirement system for needed changes and efficiencies.
    Question. How might it be modernized to reflect the needs of a new 
generation of recruits, while easing the long-term retirement cost of 
the government?
    Answer. I understand there are many proposed alternatives to the 
current military retirement system. I am unable to make recommendations 
at this time but will closely study proposals and their impact if 
confirmed.
    Question. Do you share the Defense Business Board Task Force view 
of military benefits?
    Answer. I am aware that the Defense Business Board is reviewing 
military retirement, but I do not believe it has released their report. 
I look forward to reviewing it once it is made available. I agree that 
it may be possible to restructure our military benefits in a way that 
reduces costs, but any such effort must continue to attract and support 
our men and women in uniform and their families.

             DEPENDENT CARE AND FLEXIBLE SPENDING ACCOUNTS

    Question. The 10th QRMC recommended providing dependent care and 
flexible spending benefits to Active-Duty servicemembers. Providing 
these benefits would seem consistent with the initiatives of First Lady 
Michelle Obama and Dr. Jill Biden on behalf of military families. It 
would appear that no new legislative authority is needed for the 
Department to provide these benefits to servicemembers and their 
families.
    If confirmed, would you extend these benefits to the active duty 
servicemembers and their families?
    Answer. I understand that in response to the National Defense 
Authorization Act for Fiscal Year 2006, DOD examined and provided a 
report on the advantages and disadvantages of providing flexible 
spending accounts to military members. If confirmed, I will review 
whether flexible spending accounts should be extended to Active-Duty 
servicemembers and their families.

                SYSTEMS AND SUPPORT FOR WOUNDED WARRIORS

    Question. Servicemembers who are wounded or injured performing 
duties in Operations Enduring Freedom, Iraqi Freedom, and New Dawn 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Walter Reed Army Medical Center (WRAMC) in 2007 
illustrated, the Services were not prepared to meet the needs of 
significant numbers of returning wounded servicemembers. Despite the 
enactment of legislation and renewed emphasis, many challenges remain, 
including a growing population of soldiers awaiting disability 
evaluation.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. Although I do not have sufficient information to make a 
full assessment at this time, I am aware that significant improvements 
in these areas have been made in the last 4 years. However, it is my 
opinion that more must be done. If confirmed, I will strive to ensure 
DOD regularly evaluates and seeks to improve its wounded warrior 
programs to ensure that the needs of our wounded warriors and their 
families are met.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. In my opinion, one of the most significant strengths is the 
high priority which DOD has placed on caring for our wounded warriors 
and their families. In my view, next to the wars themselves, there is 
no higher priority, and if confirmed, I will continue to place the 
highest priority on these efforts.
    Question. What are the weaknesses that need to be corrected?
    Answer. A challenge facing DOD in this area, as in other areas, is 
to ensure that in delivering the highest standard of care for our 
wounded, ill and injured, we do so in an effective and cost-efficient 
manner.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. I do not have any specific recommendations at this time. If 
confirmed, I will closely monitor and evaluate this issue to ensure 
necessary resources are in place to take care of our recovering 
wounded, ill, and injured servicemembers and their families.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program, and now an Integrated DES program, have been 
established to improve processing of servicemembers.
    What is your assessment of the need to further streamline and 
improve the Integrated DES?
    Answer. I have been told that a revised and improved disability 
evaluation system developed by the Departments of Defense and Veterans 
Affairs, known as the Integrated Disability Evaluation System, today 
serves over half of those in the system, and that its wide adoption is 
a priority of the VA and DOD leadership. I do not currently have any 
specific recommendations regarding the Integrated Disability Evaluation 
System, but I support these ongoing efforts and, if confirmed, will 
look for opportunities to further improve on them.
    Question. If confirmed, how will you address any need for change, 
particularly the Army's growing problem?
    Answer. I do not have specific recommendations at this time, but, 
if confirmed, I will work with DOD and VA to continually evaluate the 
system and identify opportunities for improvement.

             SUICIDE PREVENTION AND MENTAL HEALTH RESOURCES

    Question. The numbers of suicides in each of the services has 
increased in recent years. The Army released a report in July 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. In 
addition, studies conducted by the Army of soldiers and marines in 
theater are showing declines in individual morale and increases in 
mental health strain, especially among those who have experienced 
multiple deployments.
    In your view, what role should DOD play in shaping policies to help 
prevent suicides both in garrison and in theater and to increase the 
resiliency of all servicemembers and their families, including members 
of the Reserve components?
    Answer. The rise in suicides in the military and by veterans is 
tragic and DOD has a responsibility to address the factors that 
contribute to suicidal behavior among our military men and women 
whether they are deployed, at a military installation or in their home 
communities. I understand all of the Services have implemented 
prevention and resilience building programs. The Final Report of the 
Department of Defense Task Force on the Prevention of Suicide by 
Members of the Armed Forces is being used as a vehicle to review all 
Departmental policies and procedures related to suicide prevention. If 
confirmed, I will ensure that DOD continues to improve suicide 
prevention policies and processes.
    Question. What is your understanding of the action that the Office 
of the Secretary of Defense and the Army are taking in response to the 
July 2010 Army report, and the data in Chapter 3 in particular?
    Answer. While I have not had the opportunity to read Army Health 
Promotion, Risk Reduction, Suicide Prevention Report 2010, I know that 
sustaining a force steadily engaged in combat for over a decade has 
unexpected challenges. Some of those challenges include a rise in 
``high risk'' behaviors and suicides. It is my understanding the Army's 
report provided an introspective look at these issues and concluded 
that suicide and other high risk behaviors must be addressed with a 
more holistic and multidisciplinary approach. If confirmed, I will work 
to see the Services share lessons learned to jointly address these risk 
factors.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. Ensuring that our servicemembers and their families have 
sufficient access to the mental health resources that they need is 
critical to the wellness of our total force. I am advised that DOD is 
working to determine workforce requirements for mental health 
professionals, and utilizing all the medical, educational, and 
counseling resources available, but there is further room for 
improvement. If confirmed, I will monitor how well we are meeting these 
goals by assessing current utilization rates and further determining 
ways in which we can leverage more resources for our servicemembers and 
their families.

                        MILITARY QUALITY OF LIFE

    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care and morale, welfare and 
recreation services.
    How do you perceive the relationship between military recruitment 
and retention and quality of life improvements and your own top 
priorities for the Armed Forces?
    Answer. While I have not had the opportunity to read the 
Quadrennial Quality of Life Review, I know that quality of life 
factors, such as those highlighted in the report, contribute 
significantly to recruiting and retention are key to maintaining the 
All-Volunteer Force. It is well known that a servicemember's 
satisfaction with various aspects of military life, as well as the 
servicemember's family's experience, has a strong influence on a 
member's decision to reenlist. If confirmed, I will monitor how 
effectively DOD programs, in conjunction with community efforts, meet 
the needs of servicemembers and their families, and ensure that they 
are contributing positively to recruitment and retention.
    Question. If confirmed, what further enhancements to military 
quality of life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. I understand the importance of quality of life programs on 
the wellness of the total force as well as on recruiting and retention. 
If confirmed, I will study the key areas such as access to counseling, 
fitness opportunities, child care support and spouse employment 
opportunities. I look forward to working with advocacy groups and 
Congress to efficiently close gaps and reduce overlaps in programs and 
to communicate effectively with families to ensure that they know how 
to access available support when they need it.

                             FAMILY SUPPORT

    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. If confirmed, I will study this issue in great detail, but 
I believe that family readiness is tethered to family resilience. It is 
DOD's responsibility to ensure that families are well prepared to meet 
the challenges that come with deployment and service. Through focusing 
on the psychological, social, financial, and educational well-being of 
military families, DOD can continue to build family resilience. I 
understand that great strides have been made in improving access to 
resources for families through such programs as Military One Source, 
the Yellow Ribbon Program, but DOD can always improve.
    Question. How would you address these family readiness needs in 
light of global rebasing, base realignment and closure, deployments, 
and growth in end strength?
    Answer. Given upcoming structural changes across the world, it is 
DOD's responsibility to ensure that all resources including those in 
health care, education and employment are available to families at the 
level they need wherever they may be located. In order to accurately 
address the needs of these families in a changing environment, it is 
also critical to DOD's success to build community partnerships between 
all Federal agencies and with local governments, businesses, and non-
profit organizations that are stakeholders in addressing the stressful 
aspects of military life. If confirmed, I will monitor the changing 
needs of our military families closely.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. DOD has a duty to ensure that every family has access to 
quality resources, regardless of location. These resources should 
provide information, access, referrals, and outreach to all military 
members and their families. This needs to be underwritten by a 
coordinated, community based network of care encompassing DOD, VA, 
State, local, non-profit and private providers. It is my understanding 
that DOD's Yellow Ribbon Program has been successful in addressing 
these needs. If confirmed, I will assess this program to ensure that it 
is properly focused and funded to address the issues faced by Active 
Duty, Guard, and Reserve servicemembers and their families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. During my pre-hearing office calls, I heard about many 
excellent State programs that support servicemembers and their 
families. If confirmed, I would like to explore these further and see 
if they can be expanded across all States.
    Question. In your view, are the recent increases in military family 
support (which have risen to $8.3 billion in the fiscal year 2012 
President's budget) sustainable in future years?
    Answer. I believe family programs are sustainable in future years. 
It will be necessary to review family programs with respect to 
efficiencies just as every other program in DOD will be reviewed 
against the overall needs of DOD. The focus should not merely be on 
more resources, but rather on the efficiency and quality of Family 
Support programs along with the leveraging community-level 
organizations and citizens who desire to help their military-connected 
neighbors. DOD efficiency, along with community partnerships and 
cooperation, are key to allowing DOD to meet the long-term needs of our 
military families in an ever-increasing fiscally constrained 
environment.

                       DETAINEE TREATMENT POLICY

    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes, I believe that DOD's leadership should always be 
mindful of multiple considerations when developing standards for 
detainee treatment, including the risk that the manner in which we 
treat our own detainees may have a direct impact on the manner in which 
U.S. soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
    Question. Do you consider waterboarding to be torture?
    Answer. As I stated at my February 2009 confirmation hearing and 
prior to that hearing, I believe that waterboarding crosses the line 
and should not be employed. Having said that, I also believe, as the 
President has indicated, that those individuals who operated pursuant 
to a legal opinion indicating that the technique was proper and legal 
ought not to be prosecuted or investigated. They were acting pursuant 
to the law as it was presented to them by the Attorney General at that 
time.
    Question. Do you believe that waterboarding is consistent with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. As stated, I have expressed the view that I believe that 
waterboarding crosses the line and should not be employed. I therefore 
believe that waterboarding is inconsistent with the requirements of 
Common Article 3 of the Geneva Convention.
    Question. Do you believe that we have obtained intelligence through 
waterboarding that we would not have been able to obtain through other 
means?
    Answer. As I have stated previously, the Intelligence Community 
relies on many sources of information. Whether that technique is the 
only way to obtain certain information is an open question, as I have 
repeatedly said. If confirmed as Secretary of Defense, I will ensure 
that all interrogations conducted by DOD personnel are conducted 
consistent with the Department of the Army Field Manual 2-22.3 and in 
accord with Geneva Conventions Common Article 3.
    Question. Do you believe that the intelligence we received through 
waterboarding was accurate, or did we receive false leads?
    Answer. I cannot generalize about the quality of the intelligence 
that has been obtained through any particular technique. I am aware of 
instances in which useful information has been obtained from detainees 
and other instances in which detainees sought to provide false 
information.
    Question. Are there any circumstances under which you believe the 
United States should resume waterboarding of detainees?
    Answer. As I testified at my February 2009 confirmation hearing, I 
fully support the President's decision to establish the Army Field 
Manual, which does not permit waterboarding, as the single standard 
applying to all interrogations by U.S. Government personnel and have 
upheld this standard while I was CIA Director. I will continue to do so 
if confirmed as Secretary of Defense. I believe we should do everything 
possible to collect intelligence while remaining in compliance with the 
law.
    Question. Are you familiar with the ``enhanced interrogation 
techniques,'' other than waterboarding, that have been applied to so-
called ``high value detainees'' at Guantanamo and elsewhere?
    Answer. Yes.
    Question. Do you believe that these enhanced interrogation 
techniques are consistent with the requirements of Common Article 3 of 
the Geneva Conventions?
    Answer. I would refrain to offer a legal opinion on this question 
as the answer also depends upon the nature and extent of the technique 
employed.

         COORDINATION WITH THE DEPARTMENT OF HOMELAND SECURITY

    Question. After the terrorist attacks on September 11, 2001, 
Congress established the Department of Homeland Security (DHS), and DOD 
established the U.S. Northern Command and an Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs.
    What is your assessment of the current situation regarding 
cooperation and coordination between DOD and DHS on homeland security 
matters, and what will be your goals in this regard if you are 
confirmed?
    Answer. I understand that DOD has established a strong relationship 
with DHS.
    I believe DOD and DHS have a common goal: the protection of the 
United States.
    Elements of DOD work very closely with a number of the operational 
components of DHS including the Coast Guard, the Federal Emergency 
Management Agency (FEMA), the Secret Service, Customs and Boarder 
Protection, and others.
    DOD and DHS work hand in hand with the Council of Governors to 
reach common goals. I understand DOD has a number of liaison and 
coordination officers throughout DHS and its components. I also 
understand that there are a number of cyber security related issues on 
which the Departments are also in collaboration.
    If confirmed, my goal would be to continue this strong relationship 
and build upon a number of these important initiatives.
    Question. What do you believe is the appropriate mechanism for DOD 
to respond to the needs of domestic agencies for DOD support--whether 
through new or modified programs within DOD or otherwise?
    Answer. I understand the mechanisms for DOD to respond to the needs 
of domestic agencies appear to be working effectively. During the 2010 
Deepwater Horizon oil spill, DOD responded to 141 requests for 
assistance from DHS and the U.S. Coast Guard, by providing ships to 
skim surface oil, air traffic control capabilities, and other critical 
assets. DOD has responded to over 50 requests for assistance from FEMA 
in the past year for a variety of disasters. DOD also regularly assists 
other agencies in the homeland as well, including the Department of 
Agriculture for fighting wildfires, and the Secret Service for security 
during special events such as the Presidential Inaugural. If confirmed, 
I will work closely with domestic agencies to ensure DOD is prepared to 
continue to support civil authorities, when appropriate.

                          IRAQ LESSONS LEARNED

    Question. What do you believe are the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. One of the most important lessons is the U.S. Government 
must train and plan for post-combat operations. Conflict can occur 
along a spectrum. Our military must be prepared for combat, but also 
may have a role in shaping the political, cultural and economic factors 
that can fuel conflict. The U.S. military must plan and train with 
civilian counterparts, be prepared to operate effectively in all phases 
of conflict, and develop better awareness of political, cultural, and 
economic factors to ensure that our actions will meet our objectives.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon these lessons learned?
    Answer. I understand that lessons learned from Iraq and other 
recent engagements have led to deep and wide-ranging changes in 
doctrine, organization, training, and policy. For example, the 
counterinsurgency doctrine has been completely revised, culminating in 
the publication of Counterinsurgency Field Manual 3-24. The development 
of Advise and Assist Brigades and intelligence, surveillance, and 
reconnaissance units are examples of force structure changes.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure, or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. I am not in a position to recommend specific measures at 
this time. I understand that many of the lessons from Iraq are in the 
process of being integrated into DOD policy and doctrine, and are 
contributing to the effort in Afghanistan. If confirmed, I will monitor 
this ongoing process closely.

                     LEAD AGENCY TRANSITION IN IRAQ

    Question. Responsibility and authority for lead U.S. agency in Iraq 
is scheduled this year to transition from DOD to Department of State 
(DOS). By October 2011, DOS is supposed to achieve an initial operating 
capability as lead agency and achieve full operating capability by 
December.
    What is your understanding and assessment, if any, of the planning 
and progress on executing this transition from DOD to DOS? In your 
view, what are the sources of greatest risk, if any, to the current 
plan and successful implementation of this transition?
    Answer. DOD, State Department, and other agencies and offices have 
undertaken unprecedented levels of coordination and planning for the 
transition in Iraq. I understand that DOD has an excellent working 
relationship with DOS and that the two departments are working together 
at all levels to achieve a successful transition. As one would expect 
with a transition of this scope and complexity, challenges exist and 
DOD is doing everything it can to help set up DOS for success.
    The biggest concern I am aware of is that the State Department may 
not receive the resources it needs for the transition.
    Question. If confirmed, what changes, if any, would you propose to 
the current plan or actions for implementation of the transition?
    Answer. I believe the current plans are sufficient, based on what I 
have been briefed to date. If confirmed, I would review and assess the 
Iraq transition planning and make recommendations on any necessary 
changes.

                    STABILITY AND SUPPORT OPERATIONS

    Question. The U.S. experience in Iraq and Afghanistan has 
underscored the importance of planning and training to prepare for the 
conduct and support of stability and support operations in post-
conflict situations.
    In your view, what are the appropriate roles and responsibilities, 
if any, between DOD and other departments and agencies of the Federal 
Government in the planning and conduct of stability operations?
    Answer. As seen in recent operations, there is a great need for 
economic development, governance, and law enforcement experts who work 
for the State Department, U.S. Agency for International Development 
(USAID), and the Justice Department. As appropriate, I understand that 
DOD operates within U.S. Government and international structures for 
managing civil-military operations, and will seek to enable the 
deployment and use of the appropriate civilian capabilities and 
resources. Ideally, I understand that DOD usually will be in a 
supporting role. But when no other options are available, and when 
directed, DOD has led stability operations activities to establish 
civil security and control and to restore essential services, repair 
and protect critical infrastructure, deliver humanitarian assistance, 
and then transitioned lead responsibility to other U.S. Government 
agencies, foreign governments and security forces, and international 
governmental organizations and nongovernmental organizations.
    Question. In developing the capabilities necessary for stability 
operations, what adjustments, if any, should be made to prepare U.S. 
Armed Forces to conduct stability operations without detracting from 
its ability to perform combat missions?
    Answer. I note DOD policy states that ``stability operations are a 
core U.S. military mission that DOD shall be prepared to conduct with 
proficiency equivalent to combat operations.'' This represents a 
significant cultural and programmatic shift in recent years. If 
confirmed, I intend to familiarize myself with the efforts of the 
Military Departments to enhance proficiency on these missions and will 
work with the Chairman, the Military Department Secretaries, and 
Service Chiefs to ensure appropriate adjustments are made.
    Question. Do you believe that the authorities provided under 
section 1206 (Building the Capacity of Foreign Military Forces) and 
section 1207 (Security and Stabilization Assistance) of the National 
Defense Authorization Act for Fiscal Year 2006 contribute to a policy 
of military engagement?
    Answer. I believe the authorities provided under sections 1206 and 
1207 of the National Defense Authorization Act for Fiscal Year 2006 
have made the government more agile in its ability to respond to urgent 
and emergent counterterrorism and stabilization challenges. I am told 
that the ``dual-key'' processes established to manage these projects 
have fostered greater collaboration between the Departments of State 
and Defense. If confirmed, I intend to apply the lessons learned from 
our experience with these programs in future security and stabilization 
assistance efforts with Secretary Clinton and other interagency 
partners.
    Question. Do you believe that the U.S. Government needs to 
establish new organizations or offices to manage stability operations? 
If so, why?
    Answer. Although I have not studied this issue in detail, my 
understanding is that the U.S. Government does not need to establish 
new organizations or offices to manage stability operations. If 
confirmed, however, I will be open to the advice of others on this 
issue.
    Question. Do you believe that the U.S. Government needs to 
establish new procedures to manage stability operations? If so, why?
    Answer. I think one area where we can improve is to strengthen our 
combined ability to conduct ``whole-of-government'' planning which will 
enhance the management and the effectiveness of the U.S. Government's 
stabilization and reconstruction activities. If confirmed, I will 
review how to make such planning a priority.
    Question. What role do you believe DOD should play in providing 
training and advocacy for ``rule of law'' development in Iraq and 
Afghanistan?
    Answer. Without fair and effective rule of law, neither Iraq nor 
Afghanistan will be able to prevent the return of terrorists. Both 
countries require U.S. Government assistance in rule of law capacity 
building in such areas as civilian police forces, attorneys, and 
judges. I strongly support the State Department's lead in this critical 
endeavor. However, in fragile security environments, my sense is that 
DOD rule of law practitioners can also play a major and useful role in 
providing training and assistance.

                       SECURITY SITUATION IN IRAQ

    Question. What is your assessment of the current security situation 
in Iraq?
    Answer. Iraq still faces dangerous and determined enemies, but 
these enemies do not have the support of the Iraqi people. Although 
occasional high-profile attacks still occur, the underlying security 
situation in Iraq remains stable and these attacks have not sparked a 
return to widespread insurgency or civil war.
    Question. What are the main challenges to stability and security in 
Iraq over the coming months?
    Answer. The main challenges to internal stability and security in 
Iraq are al Qaeda in Iraq and Iranian-backed Shia extremist groups. 
Moreover, the unresolved status of territories claimed by the Kurdistan 
Regional Government has the potential to create fissures that can be 
exploited by extremist groups, and could even lead to an escalation of 
tension between Kurdish and central government forces. However, with 
sustained political engagement by Iraqi leaders and a strong U.S. 
support role, the ISF should be able to handle these challenges.

                            DRAWDOWN IN IRAQ

    Question. Do you support the current plan for the drawdown of U.S. 
forces from Iraq consistent with the U.S.-Iraq Security Agreement of 
2008 signed by President Bush and Prime Minister Maliki?
    Answer. Yes.
    Question. If the Government of Iraq were to ask for the continued 
presence in Iraq of U.S. forces beyond the end of 2011, would you 
support the deployment or retention of additional troops in Iraq beyond 
the current deadline for U.S. troop withdrawal?
    Answer. Iraqi leaders and U.S. officials have acknowledged that 
there will be gaps in Iraqi Security Forces' capabilities after 2011, 
especially in external defense. I believe the United States should 
consider a request from the Government of Iraq to remain in Iraq for a 
limited period of time to provide limited assistance to fill these 
gaps.

                    U.S.-IRAQ STRATEGIC RELATIONSHIP

    Question. In your view, what will be the nature of the U.S.-Iraq 
strategic relationship after December 31, 2011?
    Answer. The nature of the U.S.-Iraq strategic relationship desired 
by both countries is articulated in the November 2008 Strategic 
Framework Agreement (SFA). The SFA establishes a structure for 
cooperation and collaboration across a variety of sectors, including 
commercial, education, cultural, political, energy, and defense.
    Question. What do you see as the greatest challenges for that 
relationship over the coming years?
    Answer. The greatest challenges will be maintaining U.S. engagement 
and support for Iraq during a time of change. Recent turmoil in the 
broader Middle East highlights the importance of active U.S. engagement 
and maintaining strategic partnerships with regional partners based on 
mutual interests and mutual respect. We must maintain focus on Iraq in 
order to advance broader U.S. objectives of peace and security in the 
region.

                 AFGHANISTAN COUNTERINSURGENCY STRATEGY

    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. Yes, I support the strategy that the President has set 
forth and I believe it is the right strategy. We have the necessary 
resources and strategy in place to succeed in our focused 
counterinsurgency campaign. This strategy has reversed the insurgency's 
momentum and is helping the Afghans increase their governance capacity 
and build security forces that are capable of providing the security 
and basic services necessary to achieve a peaceful, stable Afghanistan 
that does not again become a safe haven for terrorists. The gains made 
are fragile and reversible.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan? For example, would you support an 
increase in counterterrorism action in Afghanistan?
    Answer. I believe U.S. strategy in Afghanistan is sound. The 
administration tracks metrics of progress throughout the year and 
conducts annual reviews to determine whether adjustments are necessary. 
Counterterrorism is a significant part of the counterinsurgency 
strategy, and managing the balance of all aspects of the strategy is an 
ongoing process.
    Question. What is your assessment of the progress of the 
counterinsurgency campaign in Afghanistan?
    Answer. Important gains have been made over the past 18 months, 
establishing security and Afghan Government authority in former Taliban 
strongholds such as Helmand and Kandahar, as well as building the 
capacity of the Afghan National Security Forces. Although the gains are 
fragile and reversible, momentum has shifted to the Afghan Government, 
and they are on track to begin the transition process by assuming lead 
security responsibilities in several areas of the country this summer.
    Question. In your view, how significant an impact does the death of 
Osama bin Laden have on the counterinsurgency campaign in Afghanistan?
    Answer. The death of Osama bin Laden is a significant victory in 
our campaign to disrupt, dismantle, and defeat al Qaeda, which is the 
core goal of our efforts in Afghanistan. The successful operation does 
not mean we can rest, but rather we have a unique opportunity to make 
new gains on al Qaeda while it is in disarray. It is too early to 
assess the long-term impact of his death, but it clearly conveys our 
persistence, determination and capability to achieve our goals.

  TRANSITION OF SECURITY RESPONSIBILITY IN AFGHANISTAN AND U.S. TROOP 
                               REDUCTIONS

    Question. Do you support the July 2011 date announced by President 
Obama to begin transferring more and more responsibility for 
Afghanistan's security to the Afghan security forces and to begin the 
drawdown of U.S. forces from Afghanistan, with the pace of reductions 
to be based on conditions on the ground?
    Answer. I support the July 2011 date to begin the process of 
transferring lead security responsibility to the Afghan National 
Security Forces (ANSF) and to begin a responsible, conditions-based 
drawdown of U.S. forces. Over the preceding 18 months, the 
International Security Assistance Force (ISAF) and its ANSF partners 
have made significant gains in the overall security environment. Their 
hard-earned gains have set the necessary conditions to begin the 
transition of responsibility.
    Question. Do you support a significant drawdown of U.S. troops 
starting in July of this year?
    Answer. I support a responsible conditions-based drawdown as called 
for by the President. I believe we have made the progress necessary to 
give the President meaningful options for his decision. Decisions 
regarding the size and pace of the drawdown will be based on 
commanders' assessment of conditions and warfighting requirements.
    Question. In your view, what impact, if any, does the death of 
Osama bin Laden have on the size or time table for the reduction of 
U.S. troops in Afghanistan?
    Answer. It is too early to know the implications of Osama bin 
Laden's death on the region and how it will affect the campaign. While 
bin Laden's death sends a clear message to other al Qaeda and Taliban 
senior leaders about U.S. resolve, there are no indications at this 
stage of what impact, if any, it might have for decisions regarding the 
size or time table for reducing forces in Afghanistan.
    Question. Do you support the goal of transitioning security 
responsibility to the Afghan security forces by 2014?
    Answer. Yes. At the NATO Summit in Lisbon, the participants in ISAF 
endorsed President Karzai's goal of ANSF assuming lead responsibility 
for security throughout Afghanistan by 2014. Although much work is 
still left, I am confident that this objective can be met.

                  AFGHANISTAN NATIONAL SECURITY FORCES

    Question. What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. The ANSF have made enormous progress in size and quality 
over the past 2 years and remain ahead of schedule for their growth 
targets this year. In addition, both the Afghan National Army (ANA) and 
Afghan National Police (ANP) have made significant gains in 
effectiveness and professionalism, although more remains to be 
achieved. The establishment of the Afghan Local Police (ALP) program 
has also fostered greater local capability to resist insurgents. U.S. 
and NATO efforts to recruit, train, equip, and deploy these forces, in 
conjunction with very capable Afghan Ministers of Defense and Interior, 
are paying real dividends on the ground in Afghanistan. These gains 
have set the ANSF on a path to be capable of assuming lead security 
responsibilities across Afghanistan by the end of 2014.
    Question. Do you support the increase in the size of the ANSF 
beyond the level of 305,000 by the fall of 2012?
    Answer. Yes. Military commanders, who are closest to the problem 
and have expert knowledge, have conducted detailed studies on ANSF 
personnel and capabilities requirements. These requirements were 
developed by examining the terrain, the strength of the enemy, and the 
core goals in the DOD campaign plan. In order to ensure the Afghans 
have the capabilities they need to secure their country in the current 
threat environment, continued ANSF growth is needed. The President has 
endorsed growth to 352,000 and I support that decision.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. Some of the main challenges to building the capacity of the 
ANSF include poor literacy rates and low education levels in the Afghan 
population which constrain the development of more advanced 
capabilities such as logistics, aviation, medical and communications 
units. These are capabilities that will be necessary for the ANSF to 
ensure Afghanistan does not again become a safe haven for terrorists. 
NATO Training Mission-Afghanistan has put a lot of attention on, and 
resources toward, the literacy problem. Another key challenge is the 
development of strong and capable leadership, which takes time and 
experience. If confirmed, I will work with military and civilian 
leaders and international partners to explore ways to bolster ANSF 
capacity.

                   AFGHAN GOVERNANCE AND DEVELOPMENT

    Question. While improving security for the Afghan people is a key 
component of our counterinsurgency strategy in Afghanistan, the success 
of that strategy also depends on improving the Government of 
Afghanistan's capacity to provide governance, better services and 
economic development. Significant concerns remain over the performance 
of the Government of Afghanistan in meeting the needs of the Afghan 
people and fighting corruption.
    What do you see as the role for DOD in building the capacity of the 
Government of Afghanistan to deliver services, provide better 
governance, improve economic development and fight corruption in 
Afghanistan?
    Answer. I strongly agree that improving governance and economic 
development is as crucial to our strategy in Afghanistan as is 
improving security. While DOS and USAID are the lead agencies within 
the U.S. Government on governance and development initiatives in 
Afghanistan, the DOD contributes to this effort and must cooperate 
closely with State and USAID. Coordinating DOD stabilization projects 
with civilian reconstruction and development efforts ensures that the 
military and civilian activities work together to support longer-term 
development objectives, as well as near-term stabilization.
    In areas where civilians cannot operate independently due to an 
insecure environment, they regularly collaborate with military 
counterparts. Recognizing that corruption erodes the legitimacy of the 
Afghan state and fuels the insurgency, the Commander, ISAF, created 
Task Force Shafafiyat (``Transparency'') to foster a common 
understanding of the corruption problem and coordinate anti-corruption 
efforts among ISAF, U.S. Forces-Afghanistan, the Afghan Government, and 
the international community. The task force has enabled ISAF to begin 
helping the Afghans address corruption and has improved U.S. 
contracting practices to ensure our funds are not being used in ways 
that contribute to the corruption that enables the insurgency

                             RECONCILIATION

    Question. Under what conditions should reconciliation talks with 
the Taliban leadership be pursued?
    Answer. The President has clearly outlined our support for an 
Afghan-led process to achieve a political resolution to the conflict in 
Afghanistan. I support Afghan Government efforts to achieve the 
reconciliation of groups and individuals who agree to cut ties with al 
Qaeda, cease violence, and accept the Afghan Constitution.
    Question. What is your assessment of the likelihood that such 
conditions may be achieved in the near future?
    Answer. The clear successes we have seen in the military campaign 
are helping to create the conditions for reconciliation. The insurgency 
does not represent a clear hierarchy, and includes a variety of 
competing and affiliated groups. Resolution of the conflict in 
Afghanistan will likely require a process that includes both national 
and local dispute resolution. I am optimistic that the sustained 
combination of our military, governance, and diplomatic efforts is 
helping to set the conditions for the Afghan Government to build the 
political consensus that will ultimately bring about a resolution to 
the conflict.

               U.S. STRATEGIC RELATIONSHIP WITH PAKISTAN

    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. Most importantly, the core national security goal remains, 
to disrupt, dismantle, and defeat al Qaeda and its militant allies, and 
eliminate their capacity to threaten the United States and its allies 
in the future. U.S. strategic interests in Pakistan encompass both our 
relationship with Pakistan itself and Pakistan's role in the campaign 
against al Qaeda. Al Qaeda and other extremists use safe-havens in 
Pakistan to plot and prepare attacks against the U.S. and our allies 
and partners, and it is essential to continue working with Pakistan to 
eliminate these safe havens.
    In addition, Pakistan's civilian-led government requires 
international support to maintain political stability and to work 
toward the ability to govern all of its territory effectively. The fact 
that Pakistan is a nuclear state that faces internal threats from 
extremist organizations adds to the urgency of these requirements. 
Furthermore, U.S. economic interests in South Asia require stability in 
the region. Preventing, if possible, a potential Pakistan-India 
conflict is another important and strategic interest. For these 
reasons, it is in the United States' interest for Pakistan to have a 
strong civilian-led government and an open society, to live in peace 
and security with its neighbors, and to ensure its nuclear assets 
remain secure, in accordance with international standards. If 
confirmed, I look forward to working with Congress as we pursue these 
strategic interests with Pakistan.
    Question. U.S. and Pakistan officials have been working together 
for years to counter the threat of terrorism. However, the revelation 
that Osama bin Laden has been hiding out apparently for years at a 
spacious, highly-secure compound in Pakistan, less than 35 miles from 
the capital, has raised disturbing questions about the nature of 
Pakistan's cooperation with the United States in the fight against 
terrorism.
    What in your view are the key lessons from the operation to kill 
Osama bin Laden for the U.S.-Pakistan relationship?
    Answer. The operation against Osama bin Laden was a vital element 
of the President's comprehensive strategy to disrupt, dismantle, and 
defeat al Qaeda, but it is far from the only element in this strategy. 
One of the key lessons from this operation is that we have seen no 
clear evidence to indicate that senior Pakistani leaders were involved 
in harboring Osama bin Laden or knew of his whereabouts. Although the 
relationship with Pakistan is not always easy and we have our 
differences, continuing cooperation with Pakistan is critical to keep a 
tremendous amount of pressure on al Qaeda's leadership and the networks 
that provide it support and safe haven at a time when it is most 
vulnerable. The operation presents a historic opportunity not only for 
us, but also for Pakistan, to advance our shared interests and 
strengthen our cooperation in eradicating terrorist networks that 
threaten both nations. If confirmed, I will continue to work with our 
partners in both Afghanistan and Pakistan to achieve our goal of 
eliminating terrorist networks that threaten the United States and our 
allies and partners and continue to seek Pakistan's unambiguous support 
in the fight against al Qaeda and the regional syndicate of terrorist 
networks.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. Our military-to-military relationship with Pakistan, like 
our overall relationship, has featured ups and downs and is challenged 
by a long-term lack of trust within Pakistan about our intentions. If 
confirmed I will continue to focus on building the trust that is 
necessary for the effective partnership we need with Pakistan.

                      U.S. ASSISTANCE TO PAKISTAN

    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan, including foreign military financing 
and training and equipment through the Pakistan Counterinsurgency Fund 
to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations. In addition, the United States 
has provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border and other support provided in connection 
with Operation Enduring Freedom.
    How effective, in your view, has this assistance been in improving 
Pakistan's efforts and commitment to counter terrorists in Pakistan?
    Answer. Security assistance, Coalition Support Fund reimbursements, 
and cross-border coordination with ISAF and Afghan forces have helped 
enable Pakistan's counterinsurgency campaign. Since 2009, Pakistan has 
undertaken counterinsurgency operations against extremist organizations 
in the northwest, including in Swat, South Waziristan, Mohmand, and 
Bajaur, with varying levels of success. Pakistan's level of commitment 
is reflected in the enormous casualties it has suffered as a result of 
terrorism in the last few years, including more than 11,000 military 
personnel killed or wounded in action and more than 30,000 civilian 
causalities in recent years, most recently in significant attacks 
following the bin Laden operation. However, Pakistan continues to lack 
the necessary military and civilian capacities to ``hold'' and 
``build'' in cleared areas. If confirmed, I will work Congress to 
ensure that the support we provide is yielding the results we seek.

                      OSAMA BIN LADEN AND AL QAEDA

    Question. What changes, if any, should the United States make to 
its security assistance policy regarding Pakistan in light of the 
revelation of Osama bin Laden's hideout within Pakistan?
    Answer. The current ``train-advise-and-equip'' programs with the 
Pakistan military and paramilitary forces have been an important 
component in pursuing the near-term objective of eliminating terrorist 
sanctuaries and disrupting the al Qaeda network. It is vital, however, 
that Pakistan live up to its end of the bargain, cooperating more fully 
in counterterrorism matters and ceasing to provide sanctuary to Afghan 
Taliban and other insurgent groups. Therefore, in the wake of the Osama 
bin Laden raid, we have asked Pakistan to take a number of concrete 
steps to demonstrate cooperation and counter-terrorism. Future requests 
for security assistance will be informed by Pakistan's response to the 
counter-terrorism steps we have proposed.
    Question. In your view, will the death of Osama bin Laden have a 
significant impact on the conflict against al Qaeda and if so, how?
    Answer. The death of Osama bin Laden is a significant blow to al 
Qaeda and brings us closer to its strategic defeat. However, al Qaeda 
remains a potent, dangerous, and adaptable foe. Its close allies, such 
as Pakistan Taliban and the Haqqani Network, have increasingly adopted 
al Qaeda's jihadist vision and, as core al Qaeda is weakened, there is 
a risk that decentralized affiliates may pose an increased threat to 
the United States. To achieve the President's objective of defeating al 
Qaeda and preventing its return to either Pakistan or Afghanistan, it 
is vital that we continue to aggressively pursue our accelerated 
counterterrorism campaign in the Afghanistan-Pakistan border region.
    Question. What is your assessment of the threat posed by al Qaeda 
affiliates to the U.S. Homeland, U.S. interests overseas, and western 
interests more broadly? Which affiliates are of most concern?
    Answer. Al Qaeda and its adherents are diverse, dispersed, and 
decentralized. They are present in the Arabian Peninsula, North and 
East Africa, South Asia, Iraq, and elsewhere around the globe, 
including within the United States. Intent and ability to attack the 
United States varies by group, but such attacks are a common theme in 
their propaganda and planning. Bin Laden himself remained very focused 
on attacking the Homeland. Al Qaeda in the Arabian Peninsula has 
already demonstrated both the intent and the capability to conduct 
attacks against the United States. Despite the death of Bin Laden, core 
al Qaeda and its adherents in the Afghanistan-Pakistan region remain a 
very dangerous threat.

                              ARAB SPRING

    Question. The Arab Spring has changed--and will likely continue to 
change--the political dynamics in the Middle East and North Africa for 
many years to come. These changes will require the United States to 
adjust our military-to-military and defense civilian relations in this 
region. Some observers argue that the United States should reduce 
significantly our military-to-military contact in countries as a result 
of the ongoing changes and others advocate more robust and stepped-up 
contact with our partners in this region.
    In your view, what should be the posture of the U.S. Government on 
military-to-military and defense civilian relations in the region?
    Answer. The DOD's military-to-military and defense civilian 
relations with our partners in the Middle East and North Africa have 
played a critical role in advancing U.S. strategic interests: defeating 
extremists, countering weapons of mass destruction, countering 
terrorist organizations, ensuring the free flow of commerce, preventing 
Iran from acquiring a nuclear weapon, disrupting smuggling and piracy, 
supporting operations in Iraq and Afghanistan, and securing Israel. 
Engagement with our key Middle Eastern and North African partners' 
defense ministries and militaries, building partner capacity to meet 
common challenges, having a forward presence to enable operations and 
deter potential threats, and being able to access regions--if and when 
necessary for future contingencies--require considerable effort on the 
part of many organizations within DOD working in tandem with DOS. 
During this time of change and uncertainty in the region, I understand 
that DOD will continue to evaluate and re-calibrate the nature and 
substance of our relationships to ensure they are consistent with U.S. 
values and advance U.S. vital national interests.

                                 LIBYA

    Question. Do you support the limited U.S. military mission in 
Libya?
    Answer. Yes. DOD is supporting operations against Libya as a part 
of an international coalition that is enforcing United Nations Security 
Council Resolution (UNSCR) 1973. The coalition's combined efforts have 
prevented the mass killing of civilians in Libya. The President was 
clear from the beginning that the United States would bring its unique 
set of capabilities to bear on the front end of this conflict to stop 
the advance of Qadhafi's forces, take out regime air defenses, and set 
the stage for the NATO mission. While our role is now to support and 
assist, the U.S. military can provide unique capabilities to this 
effort that our NATO allies and other partners cannot provide either in 
kind or at the levels required, such as electronic warfare, aerial 
refueling, intelligence, surveillance and reconnaissance support, and 
unmanned aerial vehicle strikes.
    Question. Do you support broadening the military mission to include 
regime change?
    Answer. No. While I do believe that the Qadhafi regime has lost all 
legitimacy and must go, the goal of our military effort, and the 
mandate of the United Nations (U.N.) resolution, is very clear: protect 
the Libyan people. We must continue to use a range of diplomatic and 
economic tools to apply further pressure on the Qadhafi regime. 
Ultimately, however, it will be up to the Libyan people to decide their 
future.
    Question. Should the United States provide arms and training to the 
Libyan rebels?
    Answer. The purpose of our military action is grounded in UNSCR 
1973, to protect the Libyan people in population centers like Benghazi 
from a massacre at the hands of Qadhafi's forces, and any assistance 
will be for that purpose. The administration has chosen not to provide 
arms or training to the rebels at this time, but it is my understanding 
that DOD has authorized up to $25 million of non-lethal support which 
includes medical equipment, protective vests, binoculars, and radios.

          STRATEGIC COMMUNICATIONS AND INFORMATION OPERATIONS

    Question. Over the past few years, DOD has funded an increasing 
number of psychological operations and influence programs. While the 
Department does not have any separate documentation outlining its 
strategic communication activities, GAO reports that DOD ``spent 
hundreds of millions of dollars each year'' to support its information 
operations outreach activities. Many of these programs are in support 
of operations in Iraq and Afghanistan, but Military Information Support 
Teams (MISTs) from United States Special Operations Command are also 
deploying to U.S. embassies in countries of particular interest around 
the globe to bolster the efforts of DOS and the USAID. Further, the 
geographic combatant commands are moving into this operational space.
    What are your views on DOD's psychological operations and influence 
programs and its integration into overall U.S. foreign policy 
objectives?
    Answer. I understand that DOD's capability to effectively operate 
in the information environment is essential to the U.S. Government's 
ability to engage foreign audiences and adversaries to service our 
strategic and operational interests and objectives. It is particularly 
important to counter the rise of violent extremism, reduce the 
influence of those who challenge our interests and military operations, 
and it is a critical element of Combatant Command strategies for 
security and stability in their respective geographic regions. To be 
effective, these activities must be nested in U.S. foreign policy 
objectives and integrated across government and with our allies. I have 
seen much improvement in the coordination and de-confliction of these 
activities across the interagency and, if confirmed, will seek to build 
on these relationships.
    I am aware that there has been acute interest from Congress in this 
area as budget requirements have risen sharply in recent years based on 
the growing realization of our military leaders that we must 
effectively operate in the 21st century information environment. Over 
the last year, DOD has taken significant steps to improve and ensure 
appropriate and focused management and oversight of all influence 
programs including psychological operations (now re-named Military 
Information Support Operations). If confirmed, I will continue this 
effort fully cognizant of both its importance to our military strategy 
and the requirements to ensure that DOD operates as a mutually 
supporting partner in a cooperative effort to advance our Nations 
objectives.
    Question. You were reportedly a strong supporter of the creation of 
the State Department's Center for Strategic Counterterrorism 
Communications. In your view, what--if any--support should DOD provide 
to this Center?
    Answer. As the Director of the Central Intelligence Agency, I 
supported the creation of the Center for Strategic Counterterrorism 
Communications (CSCC) and it will continue to have my support should I 
be confirmed as Secretary of Defense. Both DOD and CIA support the 
Center with personnel. DOD currently provides three military 
servicemembers in support of the CSCC, and I understand that DOS has 
requested several additional personnel. This request is undergoing 
review and consideration within DOD.
    Question. In 2005, al Qaeda's Ayman al-Zawahiri declared that ``We 
are in a battle, and more than half of it is taking place in the 
battlefield of the media.'' Last year, a non-partisan study highlighted 
the lack of a U.S. strategy to counter radical ideologies that foment 
violence (e.g. Islamism or Salafist-Jihadism).
    What is the role of DOD versus the Intelligence Community and the 
State Department?
    Answer. I understand DOD participates in several interagency 
efforts to counter violent extremism and works closely with not only 
DOS, but also CIA, the National Counterterrorism Center (NCTC), and 
others to ensure DOD programs are synchronized and deconflicted with 
programs of the other departments and agencies. Due to DOD's global 
presence, DOD personnel often encounter the effects of radical 
ideologies and the violence propagated by Islamist extremists on a 
daily basis. DOD personnel are thus well situated to contribute to U.S. 
Government efforts to counter the messages of violent extremists. DOD 
seeks to reduce support for violent extremist organizations by engaging 
foreign local populations, countering adversary propaganda, and 
developing relationships with key leaders and credible local 
interlocutors across the globe.
    Question. In your view, how do we counter radical ideologies that 
foment violence?
    Answer. The efforts of the U.S. Government to counter radical 
ideologies must be persistent and long-term, and should be developed in 
order to shape and support collaborative regional security initiatives. 
One critical area of focus is those populations that are most 
vulnerable to extremist messaging. The U.S. Government should work 
within the interagency framework to build and implement programs and 
activities that address these at-risk audiences, which are 
predominantly under 30 years of age and mostly, but not exclusively, 
male. We have learned from experience that one of the most effective 
ways of countering such messaging is by seeking to amplify the credible 
voices of our Muslim partners.
    Question. Defense Secretary Gates launched the Minerva Program in 
2009 to develop deeper social, cultural and behavioral expertise for 
policy and strategy purposes.
    Do you support this program and its goals?
    Answer. I have not had an opportunity to be briefed on the program 
and its specifics. In general, I agree that understanding the dynamics 
of social, political, economic, and cultural systems is critical not 
only for national security policy makers and strategic planners, but 
also for commanders down to the lowest tactical level.

                                SOMALIA

    Question. Somalia is a collapsed state with a weak government 
unable to project either power or stability or to provide services to 
its people. Somalia is also a training and operations hub for: al 
Shabaab and other violent extremists; pirates operating in the Indian 
Ocean and Arabian Peninsula; illicit traffickers of weapons, humans, 
and drugs; and remnants of the al Qaeda East Africa cell that was 
responsible for the destruction of our embassies in Dar es Salaam and 
Nairobi in August of 1998.
    What is your assessment of the threat posed by al Shabaab to the 
U.S. and Western interests in the Horn of Africa and to the U.S. 
Homeland?
    Answer. The threat from al-Shabaab to the U.S. and Western 
interests in the Horn of Africa and to the U.S. Homeland is significant 
and on the rise. Al-Shabaab leaders, who have claimed affiliation with 
al Qaeda since 2007, are developing ties with al Qaeda in the Arabian 
Peninsula, and are showing an increasing desire to stage international 
terrorist attacks in addition to their acts of violence inside Somalia. 
Al-Shabaab employs several hundred foreign fighters and regularly tries 
to recruit fighters from Somali diaspora communities in the United 
States and Europe. The Kampala bombings last July, which killed 79 
innocent civilians, were a wake-up call and a reminder that al-Shabaab 
is willing to operationalize its rhetoric. As al-Shabaab faces 
increasing international pressure, we may see the group increase its 
international attacks. Al-Shabaab continues to repress the Somali 
people and remains the main adversary to the Somali Transitional 
Federal Government (TFG) and to the African Union Mission in Somalia 
(AMISOM) peacekeepers in Mogadishu.
    Further, Somalia's lack of governance and sparse population could 
make it appealing as a safe haven for al Qaeda. As al Qaeda undergoes 
leadership changes and regroups from counterterrorism operations in 
Pakistan, we need to ensure that it does not relocate its center of 
operations to Somalia.
    Question. Given your knowledge of the role of the various U.S. 
Government departments and agencies in the Horn of Africa, what 
changes, if any, would you make to DOD's current role in the Horn of 
Africa?
    Answer. I understand the DOD mission in the Horn of Africa is to 
build partner-nation capacity in order to promote regional security and 
stability, prevent conflict, and protect U.S. interests. I believe this 
mission is appropriate. I am informed U.S. Africa Command is 
undertaking a review of East Africa to determine how our military 
efforts in the region work in concert with our interagency partners to 
achieve our collective regional goals and counter al Qaeda's linkages 
to elements of al-Shabaab. DOD's ultimate goal is a fully integrated 
strategy under which security assistance, capacity building, 
operational collaboration with regional partners, and counter-terrorism 
actions are synchronized to provide the regional security and stability 
that is in the interest of both the United States and our regional 
partners.
    This review of DOD's East Africa strategy will also review the 
status of Joint Task Forces to determine if any should be considered 
for transition to a more permanent Joint Interagency Task Force--
including recommendations on basing and funding for Combined Joint Task 
Force-Horn of Africa (CJTF-HOA) based at Camp Lemonier, Djibouti. If 
confirmed, I will work to ensure our strategy is developed as part of a 
coordinated U.S. national security policy towards the Horn of Africa, 
and to determine how the DOD can and should best support this policy.

              YEMEN AND AL QAEDA IN THE ARABIAN PENINSULA

    Question. A number of senior U.S. officials, including you, have 
indicated the most significant threat to the U.S. Homeland currently 
emanates from Yemen.
    What is your assessment of the current U.S. strategy in Yemen?
    Answer. U.S. goals in Yemen are to ensure Yemen is stable, unified, 
and economically viable, and to help Yemen deny al Qaeda in the Arabian 
Peninsula (AQAP) a safe-haven and operational platform. We do not yet 
know how the current crisis will play out.
    The ongoing unrest has weakened an already fragile economy and 
allowed AQAP to expand its influence and to make some tactical gains in 
the tribal areas--in several cases seizing and holding territory now 
outside of Republic of Yemen Government control. However, despite 
AQAP's limited gains, they remain distant from, and largely counter to, 
the current anti-government movement in Yemen.
    AQAP is intensely focused on conducting a near-term attack against 
the United States, and poses an immediate terrorist threat to U.S. 
interests and the Homeland. The Christmas Day attempted bombing of the 
Detroit-bound airliner in 2009 and the failed package bombing attempt 
in October 2010 were the more recent attempts by al Qaeda to attack the 
U.S. Homeland. Despite these setbacks, al Qaeda and its affiliate, 
AQAP, are still actively plotting attacks, with the principal goal of 
successfully striking the U.S. Homeland. If confirmed, I will continue 
to work to achieve U.S. objectives in Yemen.
    Question. Given the ongoing political upheaval and splintering of 
the military in Yemen, what are your views on the United States 
continuing to provide security assistance--most significantly DOD 
section 1206 funding--to Yemeni counterterrorism forces?
    Answer. In consideration of the ongoing political environment in 
Yemen, I understand DOD is constantly evaluating our security 
assistance and capacity building programs--particularly those provided 
under section 1206. The Republic of Yemen Government currently remains 
a critical partner in the war against al Qaeda, and DOD remains 
particularly mindful of the continued and growing threat to the 
Homeland from AQAP.

                                  NATO

    Question. At the NATO Summit in Lisbon last November, NATO members 
adopted a new Strategic Concept setting out the Alliance's vision for 
the coming decade. In their communique from that Summit, NATO countries 
envisioned a more agile, capable and cost-effective alliance, able to 
defend against a full range of threats and to operate effectively with 
other international organizations and non-NATO nations. At the same 
time, many NATO members have significantly reduced their national 
defense budgets in response to the global economic crisis.
    What are the greatest opportunities and challenges that you foresee 
for NATO in meeting its strategic objectives over the next 5 years?
    Answer. The United States has enormous stakes in a strong, mutually 
supportive NATO alliance, and the President has stressed his strong 
desire to rebuild and adapt transatlantic security relationships to 
meet 21st century security challenges. NATO's new Strategic Concept is 
an important step in ensuring that NATO will continue to play its 
unique and essential role in ensuring the common security of its 
members and it will guide the next phase in NATO's evolution. Over the 
next 5 years, top-tier NATO-related challenges include, first and 
foremost, achieving durable progress on a successful transition in 
Afghanistan, implementing missile defense in Europe, and stemming the 
deterioration in European military capability. It is my sense that a 
number of our NATO allies, while fulfilling their current commitments, 
have been underperforming in terms of their own investments in defense 
capabilities, especially when it comes to deployable expeditionary 
forces. Many are planning further cuts to defense investment in order 
to sustain their operations in Afghanistan and elsewhere while coping 
with the financial crisis. The challenge will be for allies to work 
together to determine which capabilities must be sustained and how that 
can be done in a more cost-effective manner, while also identifying 
other capability or mission areas where a higher degree of risk is 
acceptable.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. The President has stated that NATO enlargement should 
continue so long as new candidates are democratic, peaceful, and 
willing to contribute to common security. Precisely which countries and 
within what timeframe NATO would undertake further enlargement are 
important questions which the administration would need to address in 
close consultation with Congress and our allies. It is important that 
each NATO aspirant should be judged on its individual merits and 
progress in implementing political, economic and military reforms.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. NATO's New Strategic Concept stated NATO's commitment to 
the goal of creating the conditions for a world without nuclear 
weapons, but made clear that as long as there are nuclear weapons in 
the world, NATO will remain a nuclear Alliance. At Lisbon, NATO also 
initiated a review of its overall posture in deterring and defending 
against the full range of threats to the Alliance. I am informed that 
this review will recommend an appropriate mix of nuclear, conventional 
and missile defense capabilities for the Alliance. This provides an 
opportunity to adapt NATO's nuclear posture to the realities of the 
21st century. NATO's new Strategic Concept reflects allies' commitment 
to NATO as a nuclear alliance and to nuclear burden sharing as 
fundamental to deterrence and assurance in Europe. NATO has rightly 
made clear that it will not unilaterally eliminate its nuclear 
capabilities absent an agreement with Russia on non-strategic nuclear 
weapons. The administration is exploring negotiations with Russia to 
address the disparity in non-strategic weapons, and will consult with 
allies on those negotiations.

                       SPECIAL OPERATIONS FORCES

    Question. The previous two Quadrennial Defense Reviews (QDR) have 
mandated significant growth in our Special Operations Forces and 
enablers that directly support their operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. I believe that the current growth in special operations 
personnel is appropriate. I understand that U.S. Special Operations 
Command (SOCOM) is programmed to meet the growth mandated by the last 
two QDRs. If confirmed, I will examine if additional growth of Special 
Forces is needed, but only after that programmed growth is complete.
    Question. In your view, how can the size of Special Operations 
Forces be increased, while also maintaining the rigorous recruiting and 
training standards for special operators?
    Answer. Special Operations Forces cannot be mass produced. Special 
Operations Command leaders have stated that Special Operations growth 
should not exceed 3 to 5 percent per year in order to ensure quality of 
the manpower being produced. I have been informed that this is the pace 
SOCOM has sustained to great effect over the past several years and is 
on track to sustain over the next several years.
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why? Are there any additional missions that you 
believe SOCOM should assume, and, if so, what are they and why do you 
advocate adding them?
    Answer. I understand that DOD uses a range of processes, such as 
the Unified Command Plan, to review the mission sets and 
responsibilities it assigns to SOCOM on an ongoing basis. Additionally, 
the law provides the President and the Secretary of Defense flexibility 
needed to meet changing circumstances. At this time I would not 
advocate significant changes to SOCOM's title 10 missions. If 
confirmed, and after I have been in office for a sufficient time to 
determine if changes are advisable, I will consider any recommend 
changes as appropriate or necessary.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The activities of Special Operations Forces are quite 
varied, from high-risk strikes and counterterrorist raids to working 
by, with, and through local partners, whether training and advising 
foreign counterparts or providing support to civilian authorities 
abroad. I believe that each of these missions is highly valued within 
the special operations community. However, as the security landscape 
has changed, the demands for these kinds of missions have begun to 
exceed the ability of the Special Operations community alone to meet 
them. As a remedy to this situation, Secretary Gates advocated that the 
conventional forces be prepared to take on more of the kinds of 
missions that used to fall exclusively to SOF, including, for example, 
Security Force Assistance. I agree that broadening the spectrum of 
irregular missions that our conventional forces are able to take on 
will alleviate some of the demands being placed on the SOF community 
and ensure that the Total Force is adequately prepared to undertake 
both direct and indirect missions.

                          COMBATING TERRORISM

    Question. What is your understanding of the Department's strategy 
for combating terrorism?
    Are there steps the Department should take to better coordinate its 
efforts to combat terrorism with those of other Federal departments and 
agencies?
    Answer. It is my understanding that the DOD strategy for combating 
terrorism is comprised of three elements: antiterrorism--defensive 
measures used to reduce the vulnerability of individuals and property 
to terrorist acts; counterterrorism--offensive actions to disrupt, 
dismantle and defeat terrorists, and resolve terrorist incidents; and 
consequence management--measures to recover from terrorist attacks. 
Each of these components of combating terrorism has its own policies 
and strategies, developed in close coordination with interagency 
partners.
    While I served as Director of the CIA, I worked closely with my 
interagency counterparts on strategies to defeat terrorism around the 
globe and will bring that experience to bear if confirmed as Secretary 
of Defense. If confirmed, I will continue to work with my interagency 
partners and the National Security Council and Staff to ensure the best 
coordination possible.

              INTELLIGENCE SUPPORT FOR INDIRECT ACTIVITIES

    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department in 
Afghanistan and Iraq on special operators engaged in direct action 
operations. As a consequence, it is alleged, general purpose forces and 
Special Operations Forces engaged in indirect activities, including 
foreign internal defense and population protection, receive less 
intelligence support.
    Do you believe this is true?
    If so and if confirmed, how would you ensure Special Operations 
Forces engaged in indirect activities receive adequate intelligence 
support?
    Answer. The Intelligence Community (IC) supports a range of DOD 
customers to include those involved in foreign internal defense and 
population protection. Especially in light of efforts over the last 
several years, the IC and DOD are appropriately providing intelligence 
support to all warfighters across the board. For example, DOD created 
the Intelligence, Surveillance, and Reconnaissance (ISR) Task Force to 
field ISR platforms rapidly and, with the committee's support, has 
continued to work to expand airborne ISR capabilities. Over the past 
year, the IC has also provided significant support to the surge of 
forces to Afghanistan through Attack the Improvised Explosive Device 
Network capabilities that support both general purpose and Special 
Operations Forces. DOD and the IC are also substantially increasing 
intelligence support to Village Stability Operations and to the Afghan 
local police. The IC has also put greater emphasis on developing a 
comprehensive understanding of the socio-cultural environments within 
which terrorist networks and insurgent forces operate, which has 
enabled all warfighters to effectively engage the local population 
during stability operations. If confirmed, I will work to ensure that 
such programs, which support all warfighters, remain robust.

                        SECTION 1208 OPERATIONS

    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. I understand that section 1208 authority is a key tool that 
combatant commanders have repeatedly confirmed as essential to 
combating terrorism in their areas of responsibility. It enables the 
Special Operations Forces under their control to leverage willing 
partners that possess access to areas, people, and information that are 
denied to our forces, but critical to tactical and strategic success. 
The authority has allowed DOD to respond immediately to emergent global 
challenges. Section 1208 requires appropriate civilian oversight, 
including Secretary of Defense approval and congressional notification.

  CAPABILITIES OF SPECIAL OPERATIONS FORCES AND GENERAL PURPOSE FORCES

    Question. The 2010 QDR called for increased counterinsurgency, 
counterterrorism, and security force assistance capabilities within the 
general purpose forces.
    What is your assessment of the QDR with regard to the mix of 
responsibilities assigned to general purpose and Special Operations 
Forces, particularly with respect to security force assistance and 
building partner military capabilities? Do you believe that our general 
purpose forces need to become more like Special Operations Forces in 
mission areas that are critical to countering violent extremists?
    Answer. I concur with Secretary Gates that America's dominance in 
traditional warfighting has created powerful incentives for adversaries 
to use alternative methods to counter U.S. influence and interests. I 
also agree that, for the foreseeable future, the most likely 
contingencies the United States will face will involve irregular 
threats. Therefore, I believe the 2010 QDR's strategic shift toward 
expanding general purpose forces' capabilities and capacity for these 
contingencies makes sense. The overall flexibility of our Armed Forces 
can be greatly improved by investing in key enablers within our 
conventional force, such as strengthening and expanding capabilities 
for security force assistance; increasing the availability of rotary-
wing assets; expanding manned and unmanned aircraft systems for 
intelligence, surveillance, and reconnaissance; improving counter-
improvised explosive device capabilities; and enhancing linguistic, 
cultural, counterinsurgency, and stability operations competency and 
capacity.
    Question. Are there certain mission areas that should be reserved 
for Special Operations Forces only?
    Answer. Special Operations Forces are a unique component of our 
U.S. Armed Forces that are trained to conduct operations in areas under 
enemy control or in politically sensitive environments, including 
counterterrorism, unconventional warfare, direct action, special 
reconnaissance, foreign internal defense, and counter-proliferation of 
weapons of mass destruction. In such environments, Special Operations 
Forces provide a unique and essential capability.

             U.S. FORCE POSTURE IN THE ASIA PACIFIC REGION

    Question. The Defense Department's 2010 report of the QDR states 
that the United States needs to ``sustain and strengthen our Asia-
Pacific alliances and partnerships to advance mutual security interests 
and ensure sustainable peace and security in the region,'' and that, to 
accomplish this, DOD ``will augment and adapt our forward presence'' in 
the Asia-Pacific region.
    Do you agree that the U.S. needs to augment and adapt our presence 
in the Asia-Pacific?
    Answer. Yes. DOD must keep pace with changes in the Asia-Pacific 
security environment that pose profound challenges to international 
security, such as the rise of new powers, the growing influence of non-
state actors, and the potential spread of weapons of mass destruction 
(WMD).
    DOD should maintain an enduring military presence in the Asia-
Pacific region that provides a tangible reassurance that the United 
States is committed to Asia's security, economic development, and the 
prosperity essential to the region's success.
    Question. If so, what specific capabilities or enhancements are 
needed in your view?
    Answer. If confirmed, I will review DOD's posture in Asia and make 
appropriate recommendations on any enhancements. In general, our 
regional allies and partners must remain confident in the continued 
strength of our deterrence against the full range of potential threats.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region?
    Answer. As outlined in the 2010 National Security Strategy, the 
United States must develop a positive security agenda for the region. 
DOD's priorities include protecting U.S. territory, citizens, and 
allies; deterring aggression and maintaining regional stability; 
maintaining free and open access to the maritime, air, and space 
domains; deterring and defeating violent extremism; and preventing the 
proliferation of weapons of mass destruction and their associated 
materials.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near term 
threats to regional security and stability. This seriousness of the 
threat is seen by North Korea's continued pursuit of a nuclear 
capability and ballistic missile program, and particularly, over the 
past year, by North Korea's unprovoked and deadly attacks against South 
Korea--specifically the attack on the Republic of Korea navy ship 
Cheonan in March 2010 and the artillery attack on South Korea's 
Yeonpyeong Island in November 2010.
    What is your assessment of the current security situation on the 
Korean peninsula?
    Answer. North Korea's large conventional military, pursuit of 
asymmetric advantages through its ballistic missile and weapons of mass 
destruction (WMD) programs, including the newly revealed uranium 
enrichment activities, and proliferation behavior, underscores that 
North Korea poses a growing and direct threat to the United States, our 
allies in the region, and to the international community. If confirmed, 
I intend to monitor the security situation on the Korean Peninsula 
closely, work for the continued transformation of our alliances and 
partnerships in the region, and maintain the military capabilities 
necessary to protect our interests, defend our allies, and deter North 
Korea from acts of aggression and intimidation.
    Question. In your view does the lack of progress in diplomatic 
efforts to persuade North Korea to verifiably dismantle its nuclear 
weapons program inform or guide U.S. nuclear deterrence strategy in the 
region?
    Answer. I understand that U.S. strategy toward the Korean Peninsula 
is centered on maintaining peace through deterrence and diplomacy. The 
U.S. nuclear deterrence strategy has helped to prevent renewed war on 
the Korean Peninsula for more than half a century through escalation 
dominance, secure second-strike capabilities, and robust extended 
deterrence commitments to regional allies. Successful deterrence 
creates the space within which diplomacy can operate. The success of 
diplomatic efforts, however, will ultimately hinge on the willingness 
of North Korea to comply with the agreements it makes.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's missile and WMD programs pose a serious 
threat to U.S. regional allies and partners, and increasingly, are 
becoming a direct threat to the United States itself. The United States 
must continue to monitor carefully North Korea's WMD and missile 
development programs and related proliferation activities. If 
confirmed, I would ensure that DOD continues to work closely with other 
parts of the U.S. Government to address these and other emerging 
threats, reduce our vulnerabilities and those of our allies and 
partners, and work cooperatively with our allies to ensure our 
contingency planning remains adaptive and responsive.
    Question. In your view are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. I understand that DOD, with its interagency partners, has 
taken several measures to prevent North Korea's proliferation of 
weapons-related technology, to include working to advance international 
nonproliferation norms, and cooperating with partner nations to inspect 
and interdict vessels and aircraft suspected of carrying illicit cargo. 
If confirmed, I would continue to work to strengthen international 
consensus against proliferation, invest in capacity building programs 
with partner nations, and find ways to increase WMD-related information 
sharing with international partners.

                           REPUBLIC OF KOREA

    Question. Since the end of World War II, the alliance between the 
United States and the Republic of Korea (ROK) has been a key pillar of 
security in the Asia Pacific region. This relationship has gone through 
periods of inevitable change.
    What is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. In my view, the U.S.-ROK Alliance remains one of the 
cornerstones of U.S. strategy in the Asia Pacific and is as strong and 
viable today as it has ever been. A mutual commitment to common 
interests, shared values, continuous dialogue, combined planning, and a 
recognition of the need to transform the relationship in light of the 
changing regional and global circumstances provide a strong 
underpinning to the Alliance and can serve to inform U.S. and ROK 
efforts going forward as the Alliance becomes a more equal military 
partnership.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. As I understand it, DOD and the ROK continue to work 
closely to realign U.S. forces on the Peninsula and prepare for the 
transition of wartime operational control to the ROK by December 2015. 
As part of these efforts, for example, DOD is repositioning U.S. forces 
to bases south of Seoul. This will make the U.S. presence less 
intrusive to the Korean people, will remove U.S. forces from the center 
of Seoul, and result in a U.S. force posture that enhances U.S. forces' 
readiness and quality of life. If confirmed, I would maintain close 
contact with my ROK counterpart and build upon the solid foundation 
laid by Secretary Gates to continuously improve and transform this 
important security relationship.
    Question. What is your view regarding the timing of turning over 
wartime operational command to the ROK?
    Answer. I understand that the United States and ROK have an 
understanding on a comprehensive way forward for the transfer of 
wartime operational control by December 2015. If confirmed, I will 
continue to work with my ROK counterpart to complete this process.
    Question. Do you believe that current planning regarding tour 
normalization in the ROK should be reconsidered in view of the high 
cost of the plan and the risks associated with significantly higher 
numbers of dependents on the Korean peninsula?
    Answer. I understand tour normalization in Korea was designed to 
further our commitment to support our forward-stationed forces and 
family members. It was to be implemented on an ``as affordable'' basis 
and not according to any specific timeline. If confirmed, I will 
continue to assess the cost of implementation and our proposed force 
posture to determine the best way forward.

                                 CHINA

    Question. Much has been made about the economic and military growth 
in China and what that growth might mean in terms of regional and 
global security.
    From your perspective, what effect is China's expanding economy and 
growing military having on the region at-large and how is that growth 
influencing the U.S. security posture in Asia and the Pacific?
    Answer. China's sustained economic growth is in the United States' 
interest and has contributed to the Asia-Pacific's economic growth and 
development in recent years. In terms of regional security, China's 
economic growth has increased China's international profile and 
influence, and has enabled China's leaders to embark upon and sustain a 
comprehensive transformation of its military forces. The pace and scale 
of China's military modernization, coupled with the lack of 
transparency, raises many questions, both within the United States and 
the region as a whole, about China's future.
    From my perspective, DOD has a special responsibility to monitor 
China's military and to deter conflict. Through a robust forward 
presence, prudent capability developments, and, sustained action to 
strengthen alliances and partnerships, DOD can support our national 
interest in promoting a peaceful, stable, and prosperous Asia-Pacific 
region.
    Question. What do you believe are the objectives of China's 
military modernization program?
    Answer. China appears to be building the capability to fight and 
win short duration, high-intensity conflicts along its periphery. Its 
near-term focus appears to be on preparing for potential contingencies 
involving Taiwan, including possible U.S. military intervention. Its 
modernization efforts emphasize anti-access and area capabilities. 
China is also devoting increasing attention and resources to conducting 
operations beyond Taiwan and China's immediate periphery. Beijing's 
growing focus on military missions other than war includes humanitarian 
assistance, non-combat evacuation operations, and counter-piracy 
support. Lastly, China is strengthening its nuclear deterrence and 
enhancing its strategic strike capabilities through modernization of 
its nuclear forces and improving other strategic capabilities such as 
space and counter-space operations and computer network operations.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. I believe that we should continue to monitor closely the 
growth of China's military capabilities while continuing to encourage 
Beijing to be more transparent about its military and security affairs. 
Our strategy must be designed to preserve peace, enhance stability, and 
reduce risk in the region. Our response to China's military 
modernization should be flexible and supported by the continued 
transformation of our force posture in the Asia-Pacific, the 
maintenance of our global presence and access, the modernization of our 
own capabilities, and the strengthening of our Alliances and 
partnerships.
    Question. U.S.-China military-to-military dialogue has been 
strained over the past several years and efforts to establish and 
maintain mutually beneficial military relations has been hampered by 
China's propensity for postponing or canceling military engagements in 
an apparent effort to influence U.S. actions.
    What is your view of the relative importance of sustained military-
to-military relations with China?
    Answer. President Obama and President Hu Jintao have expressed that 
a healthy, stable, reliable, and continuous military-to-military 
relationship is an essential part of their shared vision for a 
positive, cooperative, and comprehensive U.S.-China relationship. I 
fully agree with that assertion. The complexity of the security 
environment, both in the Asia-Pacific region and globally, calls for a 
continuous dialogue between the Armed Forces of the United States and 
China to expand practical cooperation where we can and to discuss 
candidly those areas where we differ.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes and why?
    Answer. I understand that our two Armed Forces have made progress 
in recent months to build toward a more sustained--and sustainable--
relationship. I was informed the recent visit of General Chen was a 
success. We can build on that progress to improve the U.S.-China 
military-to-military relationship, both in terms of the quantity of 
exchanges, but more importantly, the quality of the dialogue. I believe 
that military exchanges with China can be valuable, but can only truly 
work if China is willing to reciprocate with transparent and 
substantive discussions. If confirmed, I will look for ways to deepen 
and enhance our military-to-military relationship with China, and to 
encourage China to act responsibly both regionally and globally.

                 DEPARTMENT OF DEFENSE COUNTERNARCOTICS

    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding relating to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. Drug trafficking and associated organized crime are a 
multidimensional threat to the United States. In addition to the impact 
on our Nation's public health and economy, drug trafficking and other 
forms of transnational organized crime provide a funding source for 
terrorists and insurgents, undermine legitimate government 
institutions, and contribute to international instability.
    I have not had an opportunity to assess the DOD counternarcotics 
program. If confirmed, I look forward to working with Congress and the 
Office of National Drug Control Policy to ensure that these programs 
achieve measureable results and that those results are clearly aligned 
with the goals of the National Security Strategy and the National Drug 
Control Strategy.
    Question. In your view, should DOD continue to play a role in 
attempting to stem the flow of illegal narcotics?
    Answer. Based on my experience with this issue from my time in 
Congress, in the Clinton administration, and in my most recent 
assignment, all agencies must work to confront the flow of illicit 
narcotics. This whole-of-government approach has been critically 
important to the progress we have made since the 1980s and should 
continue.

                INTERNATIONAL PEACEKEEPING CONTRIBUTIONS

    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both military observer and staff positions 
in support of U.N. peacekeeping operations?
    What are the advantages and disadvantages of contributing 
additional military personnel to U.N. peacekeeping operations?
    Answer. The United States has a stake in the success of U.N. 
peacekeeping operations. I believe that, where practicable, the United 
States should continue to provide military personnel for U.N. 
peacekeeping operations, especially for key staff positions that can 
help shape the direction and success of the mission. However, as with 
any investment, there are associated costs. If confirmed, I will 
carefully evaluate any proposals to contribute military or civilian 
personnel to a U.N. peacekeeping operation, weighing the potential 
positive impact of U.S. participation in the mission against other 
military commitments we have around the globe and the proposed cost of 
U.S. involvement.

                         COUNTER THREAT FINANCE

    Question. A number of officials in DOD and the Intelligence 
Community (IC) have called for investing significantly more resources 
in identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking. The objective would be to identify 
key individuals, as well as individuals enabling the flow of money 
outside of certain countries of interest.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Terrorists, drug traffickers, and other adversaries rely 
heavily on legal and illegal funding sources to support their 
activities, which routinely work against U.S. interests. It is critical 
to engage all U.S. Government tools to track and halt the flow of money 
associated with these organizations. It is my understanding that DOD 
has capability to identify and disrupt our adversaries' finances while 
working with its interagency counterparts in both Iraq and Afghanistan. 
DOD is not the U.S. Government lead agency in counter threat finance 
but, it plays a supportive role by working with other departments and 
agencies, and with partner nations, to fight our adversaries' ability 
to use global financial networks.

                       CENTRAL AMERICA AND MEXICO

    Question. During a recent Senate Armed Services Committee hearing, 
the Commanders of U.S. Northern Command and Southern Command discussed 
the increasingly dangerous region along the northern and southern 
borders of Mexico and the devastating impact transnational criminal 
organizations are having on the people and security of southern Mexico, 
Guatemala, Belize, Honduras, and El Salvador. The United States has 
increased its assistance in this region, but--to date--DOD has had only 
a small role.
    What are your views on the threats posed by transnational criminal 
organizations in this region?
    Answer. These threats are real and are felt throughout Mexico, 
Central America, and elsewhere in the region. Transnational criminal 
organizations (TCOs) threaten the security and prosperity of the United 
States' neighbors and have the resources to impact the stability of 
some of the more vulnerable nations in the region. To confront these 
threats effectively, it is necessary to harness the talents and 
resources of DOD, in coordination with those of DOD's Federal partners 
and the governments of Mexico and Central American nations.
    Question. What is your assessment of DOD's current activities in 
Mexico and Central America?
    Answer. I have not yet had an opportunity to make a thorough 
assessment but generally speaking, DOD activities such as training, 
equipping, information sharing, infrastructure support, operational 
support, and related cooperation with Mexican and Central American 
militaries and security forces complement other U.S. Government 
security efforts under the Merida Initiative and the Central America 
Regional Security Initiative. I am mindful, however, that DOD plays a 
supporting role to its law enforcement partners in the fight against 
TCOs and that DOD-led efforts alone are not enough in the long term. I 
believe a long-term solution will require a whole-of-government effort.
    Question. What changes, if any, would you propose to the DOD's 
current activities in this region?
    Answer. As I noted above, I have not had an opportunity to make a 
thorough assessment of DOD's current activities in the region. If 
confirmed, I look forward to working closely with DOD's Federal 
partners and the U.S. Government's partners in the governments of 
Mexico and the Central American nations, in consultation with Congress, 
to shape the scope and scale of continued DOD efforts in the region.

                       INTERAGENCY COLLABORATION

    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Our Nation has learned many hard lessons about the 
importance of whole-of-government approaches in counterinsurgency and 
counterterrorism operations over the past several years. One of the 
most important lessons of our experiences in Afghanistan and Iraq is 
that success in counterinsurgency, counterterrorism, and post-conflict 
stability operations depends upon the integrated efforts of both 
civilian and military organizations in all phases of an operation, from 
planning through execution. Sustainable outcomes require civilian 
development and governance experts who can help build local civilian 
capacity. DOD supports civilian agency lead in areas such as fostering 
political reconciliation, building accountable institutions of 
government, restoring public infrastructure, and reviving economic 
activity, so that DOD can focus on providing a safe and secure 
environment and assisting in building accountable Armed Forces. If 
confirmed, I will continue efforts to ensure that interagency 
collaboration is as robust and effective as possible.
    Question. How do you believe these efforts can be improved? How can 
the lessons learned in recent years be captured in military doctrine 
and adopted as ``best practices'' for future contingency operations?
    Answer. I believe interagency collaboration can be improved by 
continuing to ensure that the U.S. military plans and trains with our 
civilian counterparts and is prepared to operate effectively in all 
phases of conflict, including post-conflict reconstruction and 
stabilization. In addition, improving the interagency planning process 
would ensure that optimal use is made of all national instruments of 
statecraft, while also enhancing the ability to conduct comprehensive 
assessments, analysis, planning, and execution of whole-of-government 
operations. Robust civilian capabilities are critical to realizing any 
improvements in interagency efforts and best practices for future 
operations.

        INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT OF 2004

    Question. The Intelligence Reform and Terrorism Prevention Act of 
2004 (IRTPA), among other actions, realigned the responsibilities for 
budgeting for and management of intelligence organizations between the 
Secretary of Defense and the head of the Intelligence Community, the 
Director of National Intelligence (DNI).
    What do you believe is the role of DOD in intelligence under IRTPA?
    Answer. I believe the role of DOD, including its intelligence 
components, is spelled out clearly in law. Under title 50 of the 
U.S.C., the Secretary of Defense has responsibility for all 
intelligence and intelligence-related activities conducted by DOD 
components. DOD contains a number of elements of the Intelligence 
Community, including the Defense Intelligence Agency, the National 
Security Agency, the National Geospatial-Intelligence Agency, and the 
National Reconnaissance Office. Consistent with the statutory 
authorities of the DNI under the IRTPA, the Secretary of Defense is 
responsible for the continued operation of these elements as effective 
unified organizations within DOD for the conduct of their missions in 
order to satisfy the requirements of the Intelligence Community. The 
Secretary is also responsible for ensuring that the budgets of these 
elements are adequate to satisfy the overall intelligence needs of the 
Chairman of Joint Chiefs of Staff, the geographic combatant commanders, 
and other departments and agencies, as well as ensuring that such 
elements are responsive and timely in satisfying the needs of 
operational military forces. In the period since IRTPA's signing, a 
tremendous amount of integration has occurred within the Community and 
I believe the elements of the Intelligence Community, including those 
within DOD, are working together more closely than ever.
    Question. Do you believe that the IRTPA strikes the correct balance 
between the duties and responsibilities of the Secretary and the DNI?
    Answer. Yes. Based on my understanding of authorities granted under 
IRTPA, I believe the duties and responsibilities of the Secretary and 
the DNI are sufficiently balanced. The IRTPA gave the DNI strong 
authority over core intelligence functions for the National 
Intelligence Program, such as setting requirements and budgets, as well 
as determining priorities for and managing the analysis and 
dissemination of national intelligence, while leaving the 
responsibility for execution of DOD intelligence activities to the 
Secretary. The Under Secretary of Defense for Intelligence is dual-
hatted as the Director of Defense Intelligence in the Office of the DNI 
which helps ensure the equities of both the DNI and Secretary of 
Defense are taken into account. If confirmed as Secretary of Defense, I 
will maintain the current strong working relationship with the DNI to 
address any issues that might arise over the balance of 
responsibilities.
    Question. What changes in the IRTPA, if any, would you recommend 
that Congress consider?
    Answer. At this point, I do not recommend any change to the current 
law. If confirmed, I will wait until I have sufficient time to weigh 
options, should I discover a reason to recommend a change.

 QUALIFICATIONS OF INTELLIGENCE COMMUNITY OFFICIALS AND SECRETARIES OF 
                                DEFENSE

    Question. During the Bush and Obama administrations, there has been 
significant criticism about the appointment of active duty and retired 
military officers to senior positions in the Intelligence community, 
including as Director of National Intelligence and Director of the 
Central Intelligence Agency. Some have referred to this as the 
``militarization'' of the CIA and the Intelligence Community. With your 
nomination to be Secretary of Defense, we now have the situation where 
the last two nominees to be Secretary of Defense have been CIA 
Directors.
    Is there reason to be concerned about current or former military 
officers serving in senior positions in the Intelligence Community?
    Answer. No. I have served alongside many current or former military 
officers and have been impressed with their knowledge, professionalism, 
and effectiveness. While it is important to maintain a military and 
civilian balance across the Intelligence Community, in my view, there 
is no reason to be concerned, as a general matter, about current or 
former military officers serving in senior positions in the 
Intelligence Community. The challenges facing the Intelligence 
Community are enormous and require the most capable leaders available. 
Our military possesses a considerable pool of talented leaders who have 
proven experience within, or related to, the Intelligence Community. 
The wealth of experience and leadership these military officers bring 
with them is invaluable in meeting the Community's challenges.
    Question. Is there reason to be concerned about civilian heads of 
Intelligence Community elements serving in senior positions in the 
Defense Department, including as Secretary of Defense?
    Answer. No. I think it is fair to say that DOD and IC integration 
has never been better. This is a product, in part, of people like 
Secretary Gates, who brought his wealth of experience as a CIA officer 
and National Security Council official to DOD. Both the head of an 
Intelligence Community element and the Secretary of Defense strive to 
achieve the same central objective: keeping the American people safe. I 
believe that the knowledge and experience obtained as a senior leader 
in the Intelligence Community is extremely valuable and will improve my 
ability, if confirmed as Secretary of Defense, to successfully prevail 
in this mission.

                       QUADRENNIAL DEFENSE REVIEW

    Question. The 2010 report of the QDR provided that military forces 
shall be sized to prevail in ongoing conflicts in Afghanistan, Iraq, 
and the war against al Qaeda as well as for conducting foundational 
activities that prevent and deter attacks or the emergence of other 
threats. The QDR report particularly emphasizes the requirement for 
improved capabilities in key mission areas such as counterinsurgency, 
stability, and counterterrorism operations, as well as building the 
security capacity of partner states.
    What is your understanding and assessment of the current ability of 
each Service to provide capabilities to support these mission 
requirements and, if confirmed, what changes, if any, would you pursue 
to improve these capabilities?
    Answer. Our experience in Iraq and Afghanistan attests to the fact 
that U.S. forces have made tremendous strides over the past decade in 
developing capabilities and doctrine for effective counter-terrorism, 
counter-insurgency, and stability operations. This is true across the 
board, but particularly in our Army and Marine Corps forces, which have 
borne the brunt of the burden of bringing stability to these two 
countries.
    Further improvement is always possible and it will be important 
that we continue to gather and assess ``lessons learned'' from our 
forces in the field. If confirmed, I will continue to press for 
enhancements in our capabilities for all-source intelligence 
collection, analysis, and dissemination; rapid, secure communications 
to units in remote areas; defeating improvised explosive devices; 
training, advising, and assisting host-country forces; and cultural 
understanding.
    Question. A major objective of the Department over recent years, as 
well as guidance in the QDR report, has been toward increasing emphasis 
on and institutionalization of lower-end, irregular, counterinsurgency, 
and stability type operations.
    In your view, what does it mean to ``institutionalize'' 
capabilities and support for irregular warfare capabilities in each of 
the Services? What is your understanding and assessment of Department's 
efforts to date to institutionalize and support these capabilities?
    Answer. Institutionalizing these capabilities means working to 
ensure that our forces actively maintain and continue to improve 
effective capabilities for counter-insurgency and stability operations 
even after we have achieved our goals in the current conflicts. This 
will entail not only retaining much of the equipment that has been 
fielded over the past decade for ongoing operations but also sustaining 
the improvements in doctrine and training of experienced warfighters 
that has been central to the successes we have achieved.
    I understand DOD has taken steps to accomplish this. For example, 
as units rotate back to home station from deployments to Iraq and 
Afghanistan, they have been resetting equipment for operations that 
include COIN and stability operations. Furthermore, military education 
and training programs have been revised to place much greater emphasis 
on counter-insurgency and stability operations.
    The United States will continue to face challenges from non-state 
adversaries and regions threatened by terrorist and insurgent violence. 
Our Armed Forces must, therefore, retain the ability to counter these 
threats effectively.
    Question. Institutionalizing support for irregular, 
counterinsurgency, and stability capabilities in the force does not 
mean ignoring the requirement to be trained, equipped, and ready for 
major combat at the high-end of the full spectrum of operations.
    If confirmed, how would you propose to redistribute the 
Department's efforts and resources, if at all, to ensure that the force 
is prepared for major combat while at the same time it increases and 
institutionalizes capabilities and support for irregular, 
counterinsurgency, and stability operations?
    Answer. The 2010 QDR recognized the imperative to improve 
capabilities for operations against both irregular adversaries and 
states equipped with advanced anti-access and area-denial weapons. 
Accordingly, DOD is allocating resources to both ends of the spectrum 
of operations. This is appropriate, given the array of threats and 
challenges facing our Nation, but it is also difficult to accurately 
predict future threats and, accordingly, allocate sufficient resources, 
particularly in an era of fiscal austerity. Secretary Gates has pointed 
out that it may be necessary to shrink the force and accept that we 
will have less overall capacity in order to ensure that the forces we 
field are superbly trained and equipped for the most important 
missions. If confirmed, this is a set of issues to which I will devote 
priority attention.

                       TACTICAL FIGHTER PROGRAMS

    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the F-35 Joint Strike Fighter (JSF) 
program to modernize our tactical aviation forces with fifth generation 
tactical aircraft equipped with stealth technology.
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. I understand that the F-35 will replace a range of legacy 
tactical aircraft in the Air Force, Navy and Marine Corps with a fifth 
generation fighter. Based on the current and projected threats, I 
believe it is important that we transition to a fifth generation 
tactical aviation capability across the U.S military services as soon 
as practical. I understand that one F-35 variant, the Marine Corps' 
Short Take Off and Vertical Landing (STOVL) F-35B is on ``probation'' 
while technical issues are addressed. Overall, I believe we should 
maintain sufficient legacy inventory to support the force structure 
needed to prevail in the wars we are currently engaged in, as well as 
in possible future conflicts, while we field the F-35.
    Question. What is your assessment of whether the restructuring of 
the JSF program that we have seen over the past 2 years will be 
sufficient to avoid having to make major adjustments in either cost or 
schedule in the future?
    Answer. It is my understanding that the F-35 program restructure 
was intended to put the program on solid ground, with realistic 
development and production goals and significant reduction in 
concurrency. I support DOD's current effort to focus on and reduce F-35 
sustainment costs. If confirmed, I will review the overall F-35 
program's status and health.

                           NAVY SHIPBUILDING

    Question. Today's Navy is at its smallest size in decades and could 
decline further without additional shipbuilding efforts. The Chief of 
Naval Operations has concluded that the Navy requires a fleet of at 
least 313 ships to perform its mission.
    What are your views regarding the CNO's conclusions about the 
appropriate size and composition of the fleet, and the adequacy of the 
Navy's current and projected plans to deliver that inventory of ships?
    Answer. A strong naval force is essential to project U.S. military 
power and ensures a global presence. I am not familiar with all of the 
analysis performed in the Chief of Naval Operations' assessment to 
reach a minimum number of 313 ships. However, if confirmed, I will work 
with the Secretary of the Navy and the Chief of Naval Operations to 
ensure that the appropriate force structure requirements are fully 
identified and supported.

                         INFORMATION ASSURANCE

    Question. Protection of military networks, information, and 
communications is critical to DOD operations. The Department has not 
yet provided Congress with a comprehensive legislative proposal that 
would allow the Department to implement the President's guidance on 
dealing with current and future cyber threats.
    What is your assessment of the cyber security posture of the 
Department's critical information systems?
    Answer. From my understanding, DOD is developing a solid foundation 
for securing critical information systems. Given the lack of strong 
security features in today's commercial information technology, 
however, DOD's critical information systems, like other critical 
financial, energy, transportation information systems, contain 
vulnerabilities that are at risk of being exploited by a sophisticated 
adversary. To mitigate these vulnerabilities I understand that DOD has 
implemented and continues to improve a capability for protecting and 
defending its networks. Among other actions, the recent stand-up of 
U.S. Cyber Command has brought increased operational focus to these 
tasks.
    Going forward, an enormous amount of work is required to keep pace 
with technology and capabilities, and to stay ahead of system 
vulnerabilities that put our information and communications technology 
systems at risk. If confirmed, I will continue the efforts to secure 
DOD's information and communications technology, address cyber 
challenges, and ensure DOD can defend against network adversaries.
    Question. What Department-wide policies, guidance, or changes in 
legislation do you believe are necessary to address information and 
cyber security challenges for current and future systems?
    Answer. I am not in a position to recommend specific policies, 
guidance, or changes to authorities at this time. The administration is 
currently working with Congress to fashion new cyber legislation, and 
DOD is an active participant in these ongoing discussions. If 
confirmed, I will be studying this issue and if I determine any 
recommended changes in legislation to address information and cyber 
security challenges, I will work with the administration to provide 
those recommendations to Congress.

                              FUTURE ARMY

    Question. In a speech at West Point last February, Secretary Gates 
argued that it is unlikely that the Nation will commit large land 
forces to future conflicts, and that the Army must ``confront the 
reality that the most plausible, high-end scenarios for the U.S. 
military [will be] primarily naval and air engagements.'' Accordingly, 
the Army will find it difficult to justify the number, size, and cost 
of its heavy forces. On the other hand, former Chief of Staff of the 
Army, General George Casey Jr., said he expected that over the next 10 
years we will still have 50,000 to 100,000 soldiers deployed in combat. 
Chairman of the Joint Chiefs Admiral Michael Mullen said that for 
planning purposes the Department assumes 6 to 10 combat brigades will 
likely be deployed.
    Do you agree with Secretary Gates assertion that the commitment of 
land forces, on the scale of Iraq or Afghanistan, is unlikely in the 
future? Why or why not?
    Answer. I think our historical experience argues for humility in 
predicting the shape or direction of future conflicts. Dismissing the 
prospect of a particular type of warfare could lead to unpreparedness 
or strategic surprise. Therefore, we must be prepared to conduct 
operations across the spectrum of conflict, and our forces, including 
the Army, need the ability and flexibility to adapt to a changing 
security environment. However, I believe that we should employ the full 
range of diplomatic, economic, and informational tools to achieve 
national security objectives with reduced reliance on military force 
whenever possible.
    Question. Do you agree that high-end military operations will 
primarily be naval and air engagements such that the Army will have 
difficulty justifying the size, structure, and cost of its heavy 
formations?
    Answer. It is always difficult to predict the characteristics of 
future conflict, but I think DOD must be prepared to confront potential 
adversaries armed with advanced technologies, such as integrated air 
defense systems, long-range ballistic missiles, and anti-ship cruise 
missiles. Given the importance of power projection for U.S. operations, 
naval and air assets will undoubtedly play a key role in these future 
military engagements. However, robust Army capabilities, which provide 
an unquestioned and essential ability to find and defeat opposing 
ground forces and establish security over wide areas, also serve as a 
deterrent to potential aggressors. Our experience in Iraq and recent 
military operations by our allies and partners has informed our 
thinking on the role of heavy forces across the spectrum of conflict, 
including in urban areas and the conduct of counterinsurgency 
operations. Of particular concern for ground forces are not only the 
modernization efforts of nation-states but also the proliferation of 
increasingly advanced weaponry, such as precision-guided anti-tank 
weapons, manportable air defense systems, and precision-guided rockets, 
artillery, and mortars, to non-state actors. If confirmed, I will work 
closely with the Services to assess current and future challenges and 
adjust the size and focus of each Service accordingly.
    Question. In your view, what are the most important considerations 
or criteria for aligning the Army's size, structure, and cost with 
strategy and resources? If confirmed, what actions, if any, would you 
propose to properly align the Army's size and structure with the 
requirements of security strategies and the likely availability of 
resources?
    Answer. I understand that our Nation needs an Army that can win on 
conventional battlefields, that can conduct effective counterinsurgency 
and stability operations, and that can partner with the ground forces 
of partner states to impart skills that can help them bring security 
and stability to their own countries and regions. Maintaining skills 
across this broad mission set while ensuring excellence will be a 
challenge, particularly in a period of budget austerity, and may 
require some tradeoffs across the force. If confirmed, I will work 
closely with military and civilian leaders to balance these risks.

                           ARMY MODERNIZATION

    Question. In general, major Army modernization efforts have not 
been successful over the past decade. According to a recent study done 
for the Secretary of the Army by former Assistant Secretary of the Army 
Gilbert Decker and retired Army General Louis Wagner the Army has sunk 
$3.3 billion to $3.8 billion annually since 2004 into weapons programs 
that have been cancelled. The report states that, ``The Army lacks a 
credible, quantitative model and process for determining realistic, 
achievable requirements for modernization and recapitalization given 
reduced budgets.''
    What is your assessment of the Army's modernization record?
    Answer. I understand that many of the Army's development and 
procurement problems stemmed from pursuing programs that ultimately did 
not match the needs of DOD, were cost prohibitive or were 
technologically infeasible. I understand that the Army has been working 
to rapidly review and implement many of the innovative recommendations 
of the Decker-Wagner panel. If confirmed I will review current Army 
programs to ensure this history is not repeated.
    Question. What actions, if any, would you take to ensure that the 
Army achieves a genuinely stable modernization strategy and program?
    Answer. If confirmed, I will closely monitor and oversee the Army 
modernization efforts. This will include reviewing the steps that the 
Army is taking to improve the effectiveness of its requirements and 
acquisition systems. Moreover, as the Army implements changes to its 
acquisition system, I will encourage that the lessons learned from the 
Army's efforts are infused into other programs across the Services and 
DOD.
    Question. What is your understanding and assessment, if any, of the 
Army's capabilities portfolio review process and its current 
modernization priorities and investment strategy?
    Answer. I understand that as part of his comprehensive efforts to 
reform Army acquisition, in February 2010, Secretary McHugh ordered an 
Army-wide ``capability portfolio reviews'' to scrutinize requirements, 
identify potential redundancies and if appropriate, recommend program 
changes, including terminations. These portfolio reviews appear to be 
sound steps toward improving the results of the Army's requirements and 
acquisition systems; however, I have not had the opportunity to review 
this initiative in detail.
    Question. What actions, if any, would you take to sustain the 
momentum of these reviews in stabilizing the Army's modernization 
strategy and priorities?
    Answer. As noted above, if confirmed, I will closely monitor Army 
modernization efforts. In doing so, I will encourage the Army to 
continue its capability portfolio review process and share its lessons 
learned from this effort throughout DOD.

                       BALLISTIC MISSILE DEFENSE

    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting this year and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against long-range missiles that could reach the United 
States, thus augmenting the existing homeland missile defense 
capability.
    Do you support the Phased Adaptive Approach to Missile Defense in 
Europe and, if confirmed, will you implement it?
    Answer. I support the President's policy on European Phased 
Adaptive Approach (EPAA) and, if confirmed, I will ensure DOD supports 
the program's full implementation.
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran, and of hedging 
against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review and, if confirmed, will you 
implement them?
    Answer. I will need to further study the Ballistic Missile Defense 
Review (BMDR), if confirmed, but as I understand the issue currently, I 
support the administration's policies, strategies, and priorities as 
set forth in this review. If confirmed, I will implement the policy 
priorities of the BMDR, including sustaining and enhancing defense of 
the homeland, while increasing our capability against the growing 
regional threats.
    Question. The two most recent flight tests of the Ground-based 
Midcourse Defense (GMD) system failed to intercept their targets. The 
Director of the Missile Defense Agency (MDA) has formed a Failure 
Review Board to determine the root cause of the most recent failure and 
will devise a plan to correct it, including two flight tests to confirm 
the correction. Until the second flight test confirms the correction, 
probably sometime in late 2012, the Director of MDA has suspended 
production of the Exo-atmospheric Kill Vehicles (EKVs) of the type that 
failed last year's flight tests, in order to ensure that those EKVs do 
not contain a flaw that would need to be corrected later.
    Do you agree that it is prudent to verify that the flight test 
failure problem has been corrected before continuing production of the 
EKVs, and before building more Ground-Based Interceptors (GBIs) or 
deciding how many additional GBIs may be needed in the future?
    Answer. Verifying and correcting the problems with the EKVs prior 
to continuing production is prudent and supports the administration's 
policy to ``fly before you buy'' in order to improve reliability, 
confidence, and cost control of U.S. missile defense systems.
    Question. Do you support the continued modernization and 
sustainment of the Ground-based midcourse defense system?
    Answer. Yes. The United States is currently protected against the 
threat of limited ICBM attack from States like North Korea and Iran. It 
is important we maintain this advantage by continuing to improve the 
Ground-based Midcourse Defense system.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Do you agree that irrespective of Russian objections, the United 
States is committed to the continued development and deployment of 
United States missile defense systems worldwide, including qualitative 
and quantitative improvements to such systems?
    Answer. Yes, I believe that missile defense cooperation with Russia 
can enhance U.S., NATO, and also Russian security. The United States is 
committed to sustaining strategic stability with Russia, and it is my 
understanding that neither current nor planned U.S. missile defenses 
will impact this stability. The United States is committed to 
continuing to develop and deploy missile defenses, including 
qualitative and quantitative improvements.

                                 SPACE

    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a nation heavily dependent on space assets 
for both military and economic advantage, protection of space assets 
became a national priority.
    Do you agree that space situational awareness and protection of 
space assets should be a national security priority?
    Answer. Yes. Space situational awareness underpins our ability to 
operate safely in an increasingly congested space environment and 
enables the protection of space assets. Maintaining the benefits 
afforded to the United States by space is central to our national 
security.
    Question. In your view should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. Yes.
    Question. If confirmed would you propose any changes to National 
Security space policy and programs?
    Answer. I am not in a position to recommend any proposed changes at 
this time. If confirmed, I would continue implementation of the 
President's 2010 National Space Policy and the supporting National 
Security Space Strategy. The two offer pragmatic approaches to maintain 
the advantages derived from space while confronting the challenges of 
an evolving space strategic environment.
    Question. The Federal Communications Commission is currently 
considering licensing a telecommunications provider who plans on using 
a signal that has the potential to disrupt GPS signals.
    If confirmed, would you look into this matter to understand the 
impact on GPS signals?
    Answer. Yes. I understand DOD is currently addressing this issue. 
If confirmed, I will work with the FCC to ensure GPS remains accessible 
to support national security, public safety, and the economy.
    Question. The management of national security space and space 
systems appears to be more fragmented than ever.
    If confirmed, would you commit to reviewing the overall management 
and coordination of the national security space enterprise?
    Answer. It is my understanding that DOD recently took steps 
intended to clarify and streamline space management, by amending the 
Secretary of the Air Force's responsibilities as the Executive Agent 
for Space, and by establishing a Defense Space Council. If confirmed, I 
will assess what further steps may be required within DOD and in the 
interagency to ensure effective management of the National Security 
Space Enterprise.
    Question. What is your view on weapons in space and the merits of 
establishing an international agreement establishing rules of the road 
for space operations?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, including that all nations have a right to explore and 
use space for peaceful purposes, and that all nations should act 
responsibly in space to help prevent mishaps, misperceptions, and 
mistrust. I understand that the Joint Staff is conducting an 
operational assessment of the European Union's proposed Code of Conduct 
for Outer Space; if confirmed, I look forward to reviewing this 
assessment and considering appropriate steps to establish clear rules 
of the road for space operations.

                           STRATEGIC SYSTEMS

    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. I share the President's commitment to a safe, secure, and 
effective nuclear deterrent as long as nuclear weapons exist. 
Sustaining our nuclear deterrent requires life extension programs for 
warheads and modernization of delivery systems. I believe that 
providing necessary resources for nuclear modernization should be a 
national priority.

                                  IRAN

    Question. Iran continues to expand its nuclear program and has 
failed to provide full and open access to all aspects of its current 
and historic nuclear program to the International Atomic Energy Agency. 
In addition the P-5 +1 talks have stalled, with Iran setting 
unreasonable preconditions to resume the talks.
    Do you believe it would be in the United States' interest to engage 
Iran in a direct dialogue regarding stability and security in Iraq?
    Answer. The United States continues to reject Iran's destabilizing 
behavior towards Iraq and calls on Iran to meet its international 
obligations. The Iran and Iraq relationship is an issue that should be 
negotiated by their respective governments, especially as the United 
States draws down. However, I also believe we should continue the 
current strategy of engagement and pressure and remain open to 
additional talks with Iran through the P5+1.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program?
    Answer. I believe that we should explore ways to increase the 
pressure on Iran, including through additional sanctions, and make it 
as clear as possible that Iran's failure to meet its international 
obligations will make it less--not more--secure. At the same time, we 
should leave open the door for diplomacy, since it is not too late for 
Iran to provide commitments and take steps that ensure that its nuclear 
programs will remain peaceful.
    Question. What is your assessment of the threat posed by Iran?
    Answer. Iran remains a significant threat to the United States, its 
allies, and its interests in the region. Iran continues to enrich 
uranium and pursue an illicit nuclear program, support terrorist groups 
that attack U.S. forces and interests, and aggressively exert its 
influence throughout the region. There is a real risk that its nuclear 
program will prompt other countries in the region to pursue nuclear 
options or threaten the broader global non-proliferation regime.
    Question. In your view, what has been the effect of sanctions 
against Iran--have they been effective and should additional unilateral 
or multilateral sanctions be levied against Iran?
    Answer. The increasing economic pressure that the Obama 
administration has brought to bear on Iran has caused surprise and 
anxiety in Tehran. I do not believe that Iran's leaders believed that 
we could generate the level of international support that we have for 
sanctions. Iranian behavior has not changed, as Iran's leadership 
continues to flout U.N. resolutions and has failed to meet its 
international obligations. I believe, however, that we must continue to 
increase the economic pressure on Iran in an attempt to change Iran's 
behavior.

               DOD'S COOPERATIVE THREAT REDUCTION PROGRAM

    Question. The Cooperative Threat Reduction (CTR) program, which is 
focused primarily on eliminating Cold War era weapons of mass 
destruction (WMD) in the states of the former Soviet Union, has several 
key objectives that include: (1) eliminating strategic nuclear weapons; 
(2) improving the security and accounting of nuclear weapons and 
weapons-usable fissile material; (3) detecting, eliminating and 
preventing the proliferation of biological and chemical weapons and 
capabilities; and (4) encouraging development of capabilities to reduce 
proliferation threats.
    In your view, what needs to be done to reduce the proliferation 
threat from the residual Cold War stockpiles of WMD weapons and 
materials in the former Soviet Union?
    Answer. I believe the countries of the former Soviet Union have 
made appreciable strides in the past two decades to reduce the threats 
associated with the extensive Soviet WMD programs, facilities and 
stockpiles in their territories--in many cases with the support and 
assistance of DOD's CTR program. While much has been done, residual 
Cold War stockpiles of WMD and materials continue to pose a threat to 
U.S. national security, especially in light of the potential for WMD 
terrorism. Where and when host governments are unable to mitigate this 
threat on their own, CTR and other U.S. programs should work with these 
nations to reduce this threat.
    Question. Are Russia and the former Soviet Union countries making a 
significant contribution to efforts to reduce the proliferation threats 
they inherited?
    Answer. It is my understanding that Russia and states of the Former 
Soviet Union are making important contributions to reduce proliferation 
threats they inherited and to address new ones. These contributions 
include direct national funding as well as collaboration with U.S. 
agencies and other international partners.
    I understand that DOD's principal vehicle to support these efforts 
is the Nunn-Lugar Cooperative Threat Reduction program, which is 
executed in close coordination with related activities of the 
Departments of State and Energy. As examples, I understand that 
Kazakhstan is partnering with U.S. agencies to reduce a variety of 
nuclear and biological threats that were left by the Soviets on its 
soil. Similarly, Georgia is taking a leading role, with U.S. 
assistance, to eliminate Soviet-era biological threats and to turn 
itself into a regional bio-defense leader. I am also told that we have 
maintained a strong non-proliferation partnership with Russia in a 
number of areas.
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., DOD, the Department of Energy, and the State Department?
    Answer. I understand that DOD's CTR mission is executed with 
essential support from DOS, and in cooperation with the Department of 
Energy and other interagency partners. Robust collaboration across U.S. 
agencies and interagency coordination is a hallmark of the program and 
key to its effectiveness. If confirmed, I will evaluate whether 
interagency coordination can be improved.
    Question. As the CTR program expands to geographic regions beyond 
the states of the former Soviet Union, in your view what proliferation 
and threat reduction goals should the DOD establish?
    Answer. Expanding the geographic reach of the CTR program beyond 
the former Soviet Union strikes me as an important step toward 
preventing and reducing WMD threats and building global partnerships. 
The President has highlighted the threats posed by nuclear and 
biological terrorism as key proliferation concerns requiring 
international attention. In line with these priorities, I am informed 
that DOD's goals for the program are: (1) reducing and eliminating 
nuclear weapons threats; (2) improving the security and accounting of 
nuclear weapons and weapons-usable fissile material; (3) detecting, 
eliminating and preventing the proliferation of biological and chemical 
weapons and capabilities; and (4) encouraging development of 
capabilities to reduce proliferation threats among key partners and 
regions. I believe that these goals make sense.

                          PROMPT GLOBAL STRIKE

    Question. The 2010 QDR concluded that the United States will 
continue to experiment with prompt global strike prototypes. There has 
been no decision to field a prompt global strike capability as the 
effort is early in the technology and testing phase.
    In your view, what is the role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. Conventional prompt global strike (CPGS) weapons would 
provide the Nation with a unique conventional capability to strike 
time-sensitive targets, so that distant, hard-to-reach places will no 
longer provide sanctuary to adversaries. It is my understanding that 
the only current prompt global strike capability in the U.S. inventory 
is a nuclear armed ballistic missile. CPGS would be a valuable option 
for the President to have at his disposal.
    CPGS systems could be useful in scenarios involving regional 
adversaries considering an attack using weapons of mass destruction or 
against high-priority non-state adversaries. More broadly, CPGS may be 
the only systems available in situations where a fleeting, serious 
threat was located in a region not readily accessible by other means.
    Question. What approach to implementation of this capability would 
you expect to pursue if confirmed?
    Answer. I understand that DOD is developing and testing 
technologies relevant to both land-based and sea-based CPGS. It would 
be premature to make any decisions regarding a future deployed system 
until the results of these tests are in-hand.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. Like other weapon systems, effective employment of CPGS 
weapons would depend on the availability of timely and accurate 
intelligence on the nature, location, and disposition of a potential 
target. If confirmed, I will consider what specific improvements in 
intelligence capabilities may be needed to enable effective use of CPGS 
systems for various types of targets. I believe that it is important to 
pursue continued enhancements in our capabilities to collect, analyze, 
and distribute intelligence irrespective of the development of CPGS 
systems.

               NUCLEAR WEAPONS AND STOCKPILE STEWARDSHIP

    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability, and 
security of the stockpile?
    Answer. It is my understanding that stockpile stewardship is 
effective; today's stockpile appears to be safe, secure, and reliable 
and not require further nuclear testing. But the stockpile is aging. I 
understand that there are challenges in identifying and remedying the 
effects of aging on the stockpile. If confirmed, I am committed to 
working with the Department of Energy to maintain the critical skills, 
capabilities, and infrastructure needed to ensure the safety, 
reliability, and security of the stockpile, all in a constrained budget 
environment.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing?
    Answer. As stated in my answer above, my understanding is that 
today's nuclear stockpile appears to be safe, secure, and effective and 
does not require a return to nuclear testing. I understand that nuclear 
testing is not currently anticipated or planned. It is my understanding 
that the Stockpile Stewardship Program has demonstrated an ability to 
resolve problems that in the past would have been resolved with 
testing, and I believe that if the Stockpile Stewardship Program is 
adequately funded to maintain critical technical and manufacturing 
capabilities, it can continue to fulfill this role. My recommendation 
on a course of action in the event that I was unable to certify the 
stockpile as safe, secure, and reliable would depend critically on the 
root causes of problems in the stockpile.
    Question. What considerations would guide your recommendation in 
this regard?
    Answer. The dominant considerations would be the safety, security, 
and reliability of the nuclear stockpile and our ability to sustain the 
U.S. nuclear deterrent. Technical and military considerations would 
guide my recommendation to the President. I would certainly take into 
account the expert technical judgment of the three nuclear weapons 
laboratory directors, coupled with the military judgment of the 
Commander, U.S. Strategic Command, as well as the judgment of other 
experts. I would also ask for the best military judgment of the Joint 
Chiefs of Staff.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. I have not had the opportunity to review this report. If 
confirmed, I look forward to the opportunity to do so. I do believe 
that maintaining a safe, reliable, and secure nuclear stockpile is a 
critical national security priority. At the same time, I believe that 
nuclear modernization, as with all DOD's efforts, must be undertaken in 
a cost-effective manner. I am informed that Secretary Gates took steps 
to reduce the estimated costs of the Ohio-class replacement ballistic 
missile submarine and the new Long-Range Strike Family of Systems. If 
confirmed, I would continue to work to ensure affordability while 
sustaining a safe, secure, and effective nuclear deterrent.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
treaty limits for either the deployed or non-deployed stockpile of 
nuclear weapons?
    Answer. I have not had an opportunity to review the timeframe of 
the modernization program or to assess its relationship to reductions 
below the New START treaty limits. I agree with the Senate's resolution 
of ratification for the New START treaty in calling for negotiations 
with Russia to ``secure and reduce tactical nuclear weapons in a 
verifiable manner.'' I understand that the administration has suggested 
bilateral negotiations with Russia on this matter, after consultation 
with our allies. I believe that any proposed further reductions should 
take into account the status of the stockpile of nuclear weapons, and 
that our investments and these negotiations should be pursued in 
parallel.

               MEDICAL COUNTERMEASURES INITIATIVE (MCMI)

    Question. The administration has produced an interagency strategy 
for the advanced development and manufacture of medical countermeasures 
(MCM) to defend against pandemic influenza and biological warfare 
threats. In this strategy, DOD will be responsible for the development 
and manufacture of medical countermeasures to protect U.S. Armed Forces 
and DOD personnel.
    Do you support this interagency strategy and the MCM Initiative 
and, if confirmed, would you plan to implement them?
    Answer. Yes. If confirmed, I will work to establish this important 
capability that is needed to support our forces and sustain our global 
operations.

                       DEFENSE ACQUISITION REFORM

    Question. Two years ago, Congress enacted the Weapon Systems 
Acquisition Reform Act of 2009 (WSARA), without a dissenting vote in 
either House. WSARA is designed to ensure that new defense acquisition 
programs start on a sound footing, to avoid the high cost of fixing 
problems late in the acquisition process.
    What are your views regarding WSARA and the need for improvements 
in the Defense acquisition process?
    Answer. I support the improvements in the areas of defense 
acquisition organization and policy that are addressed in the WSARA. 
WSARA mandated needed improvements in the defense acquisition process. 
I support the law's requirements that DOD examine trade-offs between 
cost, schedule, and performance to significantly reduce cost growth in 
major defense acquisition programs. I am aware that DOD has undertaken 
significant further acquisition reform. If confirmed, I will continue 
the effort to improve the acquisition system consistent with the 
direction provided in WSARA.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process--requirements, acquisition, and budgeting?
    Answer. I believe that the acquisition process must be closely 
coordinated with the requirements and budget processes. Since enactment 
of WSARA, progress appears to have been made in coordinating these 
three processes, but I understand there remains room for improvement 
and that DOD can reduce costs to get better value for its defense 
dollar. I understand DOD is currently engaged in a comprehensive 
initiative designed to reduce cost throughout the defense acquisition 
system. I understand that a major part of this ``Better Buying Power'' 
initiative is to coordinate the requirements, acquisition, and budget 
processes in a way that mandates affordable requirements and full 
funding into weapon systems up front. I support these efforts.
    I also believe that it is necessary to create a ``Fast Lane'' for 
acquiring and fielding systems in response to urgent operational needs, 
as was done with the Mine Resistant Ambush Protected (MRAP) vehicle in 
Iraq and Afghanistan. Since the attacks of September 11, 2001, DOD has 
engaged in rapid acquisition through a variety of largely ad hoc 
processes. Section 804 of the National Defense Authorization Act for 
Fiscal Year 2011 requires DOD to consider a formal process for rapid 
acquisition. If confirmed, I will make creating a formal process for 
rapid acquisition a priority.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. Goldwater Nichols established a chain of command for the 
acquisition process which provides for clear accountability. However, 
the acquisition process must be operated in close coordination with the 
requirements process and the budget process, and this requires active 
participation by DOD's senior leadership to ensure all three processes 
are properly coordinated and held accountable. If confirmed, I am 
committed to ensuring accountability in all aspects of acquisition 
during my tenure.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. I have not reviewed DOD's investment budget in detail. 
However, it is clear to me that in this current fiscal environment, 
pursuing affordability and cost control are critical. In recent years, 
Secretary Gates has cancelled a number of programs that were unneeded, 
were not delivering affordably, or had been procured in adequate 
numbers already. These efforts have gone a long way towards paring down 
DOD's portfolio of major weapons systems to those that are truly 
needed. Existing programs must be managed so that cost growth does not 
make them unaffordable. If confirmed, I will continue to examine the 
investment budget closely for affordability and for opportunities to 
achieve cost savings.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. Clearly, continued implementation of WSARA is a critical 
element in controlling cost growth. If confirmed, I will support this 
and other ongoing efforts to control costs and reform the acquisition 
system. In particular I will review DOD's major programs to determine 
if they are affordable and I will direct the Services to do the same 
for programs under their direction.

                          SERVICES CONTRACTING

    Question. Over the past decade, there has been a dramatic increase 
in the volume of services purchased by DOD. According to a recent 
report by the Defense Science Board, the Department now spends 
substantially more for contract services than it does for all products, 
including weapon systems. Yet, the Department is still struggling to 
establish a management structure for services contracts comparable to 
the structure in place for the acquisition of products.
    What is your view of the Department's reliance on service 
contractors?
    Answer. I recognize that the private sector is, and will continue 
to be, a vital source of expertise, innovation and support and that 
DOD, which relies on an All-Volunteer Force, simply cannot operate 
without the support of service contractors. These contractors do 
account for more of the defense budget than contractors who provide 
products to DOD. I believe that properly managing service contractors 
is just as important as managing DOD's contractors who provide weapon 
systems and other products.
    Question. If confirmed, how do you plan to address the issue of 
cost growth in services contracting and ensure that the Department gets 
the most for its money in this area?
    Answer. If confirmed, I will review the processes DOD is using to 
manage service contractors to ensure that they are providing good value 
for the funds they receive.
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. At this time I do not have enough information to make this 
assessment. However, I believe that reliance on contractors is 
something that must be assessed function by function. Many functions 
are appropriate for contractor support, however some, such as program 
management, are more appropriately performed by government personnel. 
Some functions are inherently governmental and should not be performed 
by contractors. If confirmed I will assess this issue to determine 
whether or not DOD's reliance on contractors has become excessive.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. Although I am not familiar with the various types of 
functions acquired through personal service contracts, or the extent to 
which DOD acquires these functions through personal services contracts, 
I understand there are statutory restrictions. In my view, the basis 
for those restrictions is as applicable to DOD as to that of other 
Federal departments and agencies. If confirmed, I will ensure that 
personal services contracts are not used inappropriately.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by government employees?
    Answer. When it is appropriate for contractors to perform work that 
is similar to work performed by government employees, my view is that 
those contractor employees should be subject to appropriate ethics and 
conflict of interest requirements. Contractor employees should be held 
to similar ethical standards as the Government employees they support, 
and in particular, should not be allowed to misuse the information 
which may be available to them as a result of their performance under a 
DOD contract.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan has often exceeded 
the number of U.S. military deployed in those countries.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. I am not in a position to offer such an assessment at this 
time. While DOD's use of contractors is high relative to previous 
conflicts, current levels may be warranted. DOD now has several years 
of experience with the widespread use of contractors to support the 
All-Volunteer Force engaged in counter-insurgency and stability 
operations. It is my understanding that the increased level of reliance 
on contracted support in contingency operations is highlighted in a 
recent study conducted by the Chairman of the Joint Chiefs of Staff.
    Furthermore, it is my understanding that based on a recommendation 
by the Chairman, Secretary Gates recently issued a memorandum to DOD 
regarding a wide range of initiatives associated with contractor 
support in contingencies. This memorandum requires the military 
departments to assess opportunities for in-sourcing contracted 
capabilities that represent high risk to the warfighter. If confirmed, 
I will review this study and the military departments' assessments.
    Question. What risks do you see in the Department's reliance on 
such contractor support?
    Answer. Reliance on contractor support can lead to operational 
problems if contractors fail to perform. Experience has shown that a 
number of other problems can arise including a potential for increased 
fraud, waste and abuse, problems that arise from contractor interaction 
with local communities, and issues with the use of force. It is also 
possible that skills needed in the military in the future will atrophy 
or disappear due to reliance on contractor support.
    Question. What steps do you believe the Department should take to 
mitigate such risk?
    Answer. I believe the first step in mitigating such risk is to gain 
a thorough understanding of any risks we have with the current 
workforce mix of military, civilian and contractors. The aforementioned 
study led by the Chairman of the Joint Chiefs of Staff and the 
assessments being conducted by the military services and agencies will 
provide me with a baseline level of understanding. If confirmed, I will 
review and continue ongoing efforts to conduct effective oversight of 
service contracts in contingencies.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. It is my understanding that originally DOD was not properly 
organized and staffed to effectively manage contractors in the ongoing 
contingency operations, but that corrective actions have been taken 
over the last several years. If confirmed, I will review ongoing 
efforts to ensure DOD institutionalizes its contingency contracting 
capabilities and the lessons learned from our experiences in Iraq and 
Afghanistan are applied to future conflicts.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. It is my understanding that DOD has made significant 
progress in implementing effective management of contractors during 
contingency operations through several ongoing efforts. If confirmed, I 
will review and ensure these efforts are adequate and effective and I 
will work to institutionalize the effective management processes that 
have been developed over the last several years as appropriate.

                      PRIVATE SECURITY CONTRACTORS

    Question. Federal agencies, including DOD, have spent more than $5 
billion for private security contractors in Iraq and Afghanistan over 
the last decade. Over this period, there have been numerous reports of 
abuses by private security contractors, including allegations of 
contractors shooting recklessly at civilians as they have driven down 
the streets of Baghdad and other Iraqi cities. In September 2007, 
employees of Blackwater allegedly opened fire on Iraqis at Nisour 
Square in downtown Baghdad, killing more than a dozen Iraqis and 
wounding many more. More recently, the Senate Armed Services Committee 
reported on questionable activities by private security contractors in 
Afghanistan.
    Do you believe DOD and other Federal agencies should rely upon 
contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. Without a substantial increase in the force structure 
committed to contingency operations, the use of contractors for some 
security functions in contingencies is a necessity. However, these 
contractors must be properly regulated and supervised and their mission 
must be carefully limited. Contractors cannot engage in combat 
operations. Their use of force is limited to self-defense and the 
defense of others against criminal violence and the protection of 
critical property. Under these circumstances, I believe that the 
limited use of security contractors in contingency operations is 
acceptable. It would be inappropriate for me to comment on their use by 
other departments. If confirmed I will ensure that proper limitations 
on private security contractors are in place and enforced.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq and Afghanistan?
    Answer. The use of force by contractors or military personnel can, 
if misapplied, undermine our policy objectives. Contractors for 
physical security missions have been a necessity in Iraq and 
Afghanistan and will continue to be so. My understanding is that, over 
time, DOD has established procedures to manage these contractors 
effectively to prevent unnecessary violence that would be detrimental 
to our policy objectives. This is an area that requires constant 
attention and continued supervision and policy refinement is required. 
If confirmed, I will focus on providing that supervision.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would work to ensure that two actions are 
taken. First, the use of private security contractors in any area of 
combat operations must be fully coordinated. There must be unified and 
consistent procedures for all such contractors, regardless of which 
U.S. agency hires them. Our commanders on the ground must have 
authority to restrict security contractors' operations as the situation 
requires.
    Second, there must be assured legal accountability for the actions 
of private security contractors. In a given circumstance, the host 
nation will have responsibilities in this regard as well, such as 
rigorous licensing procedures and enforcement of its own laws.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I support steps to ensure that there is legal 
accountability for the actions of all contractors performing work for 
the U.S. Government in an area of combat operations. If confirmed, I 
will consult with my interagency partners concerning appropriate 
mechanisms to ensure such accountability.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. There must be assured legal accountability for the actions 
of all contractors deployed to an area of combat operations. The 
application of the Uniform Code of Military Justice is one tool to do 
this.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''
    Answer. In your view, is the performance of security functions that 
may reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function? In your view, is the interrogation of enemy 
prisoners of war and other detainees during and in the aftermath of 
hostilities an inherently governmental function?
    I am not familiar with DOD policies governing the use of 
contractors in detention operations, but if confirmed, I will review 
them to ensure they properly separate inherently governmental functions 
from work performed by contractors. I am aware that Congress spoke to 
the issue of interrogation by contractors in section 1038 of the 
National Defense Authorization Act for Fiscal Year 2010 which prohibits 
the interrogation by contractor personnel of detainees or others in the 
custody or under the effective control of DOD in connection with 
hostilities. If confirmed, I will ensure this provision is enforced.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. If confirmed, I will review these issues to determine 
whether there is a need to reevaluate these policies.

                         ACQUISITION WORKFORCE

    Question. Over the last 15 years, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Since September 11, 2001, moreover, the demands placed on 
that workforce have substantially increased. Section 852 of the 
National Defense Authorization Act for Fiscal Year 2008 established an 
Acquisition Workforce Development Fund to help DOD address shortcomings 
in its acquisition workforce. Over the last year, Secretary Gates has 
stated that the Department must continue to rebuild its acquisition 
workforce, even as it seeks efficiencies in other areas.
    Do you agree that the Department would be ``penny-wise and pound 
foolish'' to try to save money by cutting corners on its acquisition 
workforce at the risk or losing control over the hundreds of billions 
of dollars that it spends every year on the acquisition of products and 
services?
    Answer. Yes. I am aware that DOD is expending far more today on 
goods and services with an acquisition workforce substantially reduced 
in size from the 1990s. If confirmed, I will support a properly sized 
and highly capable acquisition workforce.
    Question. Do you believe that the Acquisition Workforce Development 
Fund is needed to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes. It is my understanding that DOD has used the Defense 
Acquisition Workforce Development Fund, which originated in this 
committee, to resource a number of initiatives to attract, develop, and 
retain individuals with critical acquisition skills. DOD must continue 
to fund these initiatives which are critical to achieving a properly 
sized and highly capable acquisition workforce.
    Question. If confirmed, what steps if any will you ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. If confirmed, I will direct that the Under Secretary for 
Acquisition, Technology, and Logistics monitor the implementation of 
the Defense Acquisition Workforce Development Fund to ensure that it 
focuses on rebuilding critical skills in the workforce, without which 
our goals for affordability, cost control, and reform of the 
acquisition system cannot be met.

                           MANAGEMENT ISSUES

    Question. The Government Performance and Results Act is intended to 
provide managers with a disciplined approach by developing a strategic 
plan, establishing annual goals, measuring performance, and reporting 
on the results by for improving the performance and internal management 
of an organization.
    What do you consider to be the most important priorities and 
challenges facing DOD as it strives to achieve these management goals?
    Answer. I share Secretary Gates' concern, as noted in his recent 
speech to the American Enterprise Institute, that the current systems 
for managing people and money across the DOD enterprise are inadequate. 
It is my understanding that the defense agencies, field activities, 
joint headquarters, and support staff functions of DOD operate without 
centralized mechanisms to allocate resources, track expenditures, and 
measure results relative to DOD's overall priorities. If confirmed, I 
look forward to addressing this issue.
    Question. What are your views on the importance and role of 
financial information in managing operations and holding managers 
accountable?
    Answer. I believe that having access to the appropriate financial 
information, as well as other key performance indicators, is critical 
towards managing operations and holding leaders accountable for 
results.

                          FINANCIAL MANAGEMENT

    Question. DOD spends billions of dollars every year to acquire, 
operate, and upgrade business systems needed to support the warfighter, 
including systems related to the management of contracts, finances, the 
supply chain, and support infrastructure. Despite these expenditures, 
the Department's business systems are stovepiped, duplicative, and 
nonintegrated. As a result, the Department remains unable to produce 
timely, accurate, and complete information to support management 
decisions.
    If confirmed, will you ensure that the financial management 
problems of DOD receive priority attention at the senior management 
level?
    Answer. Yes.
    Question. What priority do you believe the Department should place 
on achieving a clean financial statement, as required by section 1003 
of the National Defense Authorization Act for Fiscal Year 2010?
    Answer. Achieving clean audit opinions is one of my top management 
improvement priorities. A clean financial audit opinion is important to 
demonstrate that DOD is a responsible steward of public funds and to 
ensure management has accurate and timely information for 
decisionmaking. I understand DOD has a plan for achieving auditable 
statements that includes goals, a governance process, and resources; 
and that this plan depends in part on modernizing its business systems.
    I expect senior leaders across DOD to work together to continue 
progress towards meeting the legal requirement to be ready for audits 
by the end of 2017, and will ensure that the Comptroller, in 
partnership with the Chief Management Officers, devotes time and 
resources to leading this effort.

                         HUMAN CAPITAL PLANNING

    Question. DOD faces a critical shortfall in key areas of its 
civilian workforce, including the management of acquisition programs, 
information technology systems and financial management, and senior DOD 
officials have expressed alarm at the extent of the Department's 
reliance on contractors in these areas. Section 115(b) of title 10, 
U.S.C., requires the Department to develop a strategic workforce plan 
to shape and improve its civilian employee workforce.
    Would you agree that the Department's human capital, including its 
civilian workforce, is critical to the accomplishment of its national 
security mission?
    Answer. Yes. DOD's human capital, including its civilian workforce, 
is not only critical, but an essential element to the successful 
accomplishment of its national security mission. It is my understanding 
that the civilian workforce is viewed as one entity throughout DOD. 
Given the intent to have civilians be capable and ready to move to 
where an emerging requirement exists within DOD, collaboration is an 
ongoing process amongst the Services, Defense Agencies, Joint Staff, 
and Office of the Secretary of Defense. This process ensures that DOD 
is speaking in one voice for its civilian workforce to ensure 
transparency, develop and recommend enterprise policy, and support the 
overall lifecycle. DOD employs a robust system of talent management to 
ensure it possesses and plans for future workforce needs. If confirmed, 
I will work to ensure that this ready and capable civilian force has 
the support it needs through programs that foster ideas, methods, and 
procedures for lifecycle management.
    Question. Do you share the concern expressed by others about the 
extent of the Department's reliance on contractors in critical areas 
such as the management of acquisition programs, information technology 
and financial management?
    Answer. If confirmed, I will monitor whether or not DOD is too 
reliant on contractors. The private sector will continue to provide 
vital support to DOD. There are areas in acquisition, IT and financial 
management where support from contractors is an appropriate and cost 
effective solution to perform work that does not require government 
personnel discretion. If confirmed, I will be committed to proactively 
managing the Total Force of military and civilian personnel, and 
support provided by contractors.
    Question. If confirmed, will you ensure that the Department 
undertakes necessary human capital planning to ensure that its civilian 
workforce is prepared to meet the challenges of the coming decades?
    Answer. Yes. If confirmed, I will ensure that a comprehensive 
workforce plan provides strategies for recruitment, development, and 
retention of a mission-ready civilian workforce is in place. Planning 
is critical as fiscal constraints impact workforce capabilities and 
sustainment.

                          TEST AND EVALUATION

    Question. A natural tension exists between major program objectives 
to reduce cost and schedule and the test and evaluation (T&E) objective 
to ensure performance meets specifications and requirements.
    What is your assessment of the appropriate balance between the 
desire to reduce acquisition cycle times and the need to perform 
adequate testing?
    Answer. I support rigorous independent testing and evaluation to 
provide accurate and objective information on the capabilities and 
limitations of defense systems to both acquisition executives and 
warfighters and to ensure contractors deliver products that meet their 
requirements. When systems are urgently needed in the field, the 
imperative for accurate and objective testing is still just as 
important but should be addressed through efforts to expedite the T&E 
process. I understand this has been accomplished successfully for such 
urgent efforts as the MRAP vehicle program. In those urgent cases I 
believe that some risk can be taken, but safety and basic performance 
must be verified prior to fielding. Testing is needed to validate 
system performance and I believe it is a necessary part of the 
acquisition process. That said, there may be opportunities to achieve 
this goal through more efficient processes than those currently in 
practice.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through T&E to be operationally effective, suitable, and 
survivable?
    Answer. In a limited number of urgent circumstances it might be 
necessary to field a system prior to operational testing in order to 
address an urgent gap in a critical capability. But even in such cases, 
operational evaluation should still be conducted at the earliest 
opportunity to assess the system's capabilities and limitations and 
identify any deficiencies that might need to be corrected.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress, consistent with the statutory independence of the office.
    Do you support the continued ability of the Director of Operational 
Test and Evaluation to speak freely and independently with Congress?
    Answer. Yes.

      FUNDING FOR SCIENCE AND TECHNOLOGY INVESTMENTS AND WORKFORCE

    Question. In his State of the Union speech earlier this year, the 
President said that ``maintaining our leadership in science and 
technology (S&T) is crucial to America's success.'' In the fiscal year 
2012 budget submission, despite the significant efforts to find 
efficiencies, the DOD's basic research investments grow by 2 percent 
per year and other S&T activities remain constant taking into account 
inflation.
    Do you support maintaining growth in the DOD's S&T investments?
    Answer. I understand and appreciate the valuable role government 
investment in S&T has had for the Nation and DOD. As Director of the 
Central Intelligence Agency, I noted that many of that agency's key 
capabilities emerged from long-term S&T funding. I have seen the 
results and I support long-term S&T investments. I am also aware that 
the President has challenged S&T funding levels for all government 
components. While S&T investment will be a high priority if I am 
confirmed, all defense appropriations must be considered during this 
time of budget constraints.
    Question. How will you assess whether the S&T investment portfolio 
is adequate to meet the current and future needs of the Department?
    Answer. If confirmed, I anticipate conducting an early review of 
DOD's capabilities to support the administration's goals, including S&T 
investment. DOD's budget must balance a number of competing needs and, 
if confirmed, I will have to assess all those needs, and the risks 
associated with various levels of funding.
    Question. Well over half of all graduates of U.S. universities with 
advanced degrees in S&T are non-U.S. citizens. Due to a variety of 
reasons, many return to their home countries where they contribute to 
competing against the United States in technology advancement.
    What is your view on steps that the Department should take, if any, 
to ensure that DOD and the defense industrial base are able to recruit 
and retain scientists and engineers from this talent pool?
    Answer. The issue of enabling and encouraging foreign students to 
remain in the United States to pursue careers in science and 
engineering is one that affects the Nation as a whole. If confirmed, I 
would work within the administration and with Congress to find ways to 
retain this talent pool.

                        DEFENSE INDUSTRIAL BASE

    Question. The latest QDR addressed the need for strengthening the 
defense industrial base. Specifically, it said: ``America's security 
and prosperity are increasingly linked with the health of our 
technology and industrial bases. In order to maintain our strategic 
advantage well into the future, the Department requires a consistent, 
realistic, and long-term strategy for shaping the structure and 
capabilities of the defense technology and industrial bases--a strategy 
that better accounts for the rapid evolution of commercial technology, 
as well as the unique requirements of ongoing conflicts.''
    What is your view on steps that the Department should take, if any, 
to strengthen the defense industrial base?
    Answer. I believe a strong, technologically vibrant, and 
financially successful defense industrial base is in the national 
interest. I understand that national policy for many years has been to 
let market forces adjust the defense industrial base to our evolving 
threats and requirements, and to changing technology. The government 
specifically supports defense S&T, and small businesses entering the 
defense market. Occasionally, specific industrial policies are used to 
assure the long-term health of particular sectors of the defense 
industry. If confirmed, I will ensure DOD uses a sector-by-sector 
approach to the defense industrial base, with productivity growth and 
long-term health as its goals.

                              ENCROACHMENT

    Question. Some of the most significant issues that impact the 
readiness of the Armed Forces are categorized as outside encroachment 
upon military reservations and resources. This encroachment has 
included, but is not limited to environmental constraints on military 
training ranges, local community efforts to obtain military property, 
housing construction, and other land use changes near military 
installations, airspace restrictions to accommodate civilian airlines, 
and transfer of radio frequency spectrum from DOD to the wireless 
communications industry. Unless these issues are effectively addressed, 
military forces will find it increasingly difficult to train and 
operate at home and abroad.
    In your opinion, how serious are encroachment problems for the U.S. 
military? If confirmed, what efforts would you take to ensure that 
military access to the resources listed above, and other required 
resources, will be preserved?
    Answer. I believe that encroachment is a serious issue for the U.S. 
military. I am aware that DOD has a number of key programs to influence 
activities outside our installations so that they do not conflict with 
our training and operations. I strongly support such efforts and, if 
confirmed, will work closely with Congress to ensure that these efforts 
are effective.

                       LAW OF THE SEA CONVENTION

    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the United States Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea convention?
    Answer. I support U.S. accession to the Law of the Sea Convention.
    Question. How would being a party to the Law of the Sea convention 
help or hinder the United States' security posture?
    Answer. Being a party to the Law of the Sea Convention would not 
hinder the U.S. security posture, nor would it have any adverse impact 
on our sovereignty. In fact, becoming a party would enhance our 
security posture by enabling the United States to reinforce the 
Convention's freedom of navigation and overflight rights, including 
transit passage in strategic straits, and preserve our rights and 
duties in the Arctic. In addition, becoming a Party to the Convention 
would support combined operations with coalition partners and support 
the Proliferation Security Initiative; establish undisputed title to 
our extended continental shelf areas; and bolster our leadership in 
future developments in the law of the sea. Accession would also add to 
DOD's credibility in a large number of Asia-focused multilateral venues 
where Law of the Sea matters are discussed.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                         EXPORT CONTROL REFORM

    1. Senator Levin. Mr. Panetta, the outgoing Secretary of Defense 
has been a leading proponent of the administration's effort to reform 
our export control system. One element of that effort is a review of 
the U.S. Munitions List (USML), which is expected to result in the 
transfer to the Commerce Control List (CCL) less sensitive items that 
do not require USML controls. What is your view of the administration's 
effort to reform export controls?
    Mr. Panetta. I fully support the reform efforts because I believe 
they are absolutely necessary to meet 21st century national security 
challenges. Secretary Gates played a key role in setting the 
administration's export control reform objectives: a single list, a 
single licensing agency, a single enforcement coordination agency, and 
a single U.S. Government-wide information technology licensing system. 
The administration has made significant progress in most areas. The 
Department of Defense (DOD) has been fully engaged in revising the USML 
and continue to focus on completing this important work with our 
interagency partners to produce a single export control list that is 
more transparent and predictable for government and industry.

    2. Senator Levin. Mr. Panetta, if you are confirmed, do you plan to 
continue the review of the USML, and to transition items, as 
appropriate, to the CCL?
    Mr. Panetta. Yes, I will work to ensure that DOD continues to be 
the key driver in revising the USML into a positive list, tiering 
controls based on the criticality of items and technologies for 
military and intelligence applications, and identifying items that 
should be moved to the more flexible licensing policies under the CCL.

    3. Senator Levin. Mr. Panetta, what is your understanding of the 
timing for this effort?
    Mr. Panetta. With respect to revising the USML and moving items to 
the CCL, DOD has developed initial drafts of 19 categories of the USML. 
My understanding is that following interagency deliberations, the plan 
is to incrementally publish these re-built categories for public 
comment in the latter part of 2011 and early 2012.
    With respect to establishing a single information technology 
system, DOD is leading this critical step. Using DOD's U.S. Exports 
System (USXPORTS) program, for the first time, all agencies will have 
access to a full licensing dataset that will facilitate fully informed 
and timely decision making. The Departments of State and Commerce will 
be connected to USXPORTS this year; the Treasury Department is expected 
to have connectivity in 2012.
    My understanding is that the administration is working to finalize 
the rules for the Export Enforcement Coordination Center (EECC) as 
directed by Executive Order 13558, signed by the President in November 
2010. The EECC is a key pillar of export control reform.
    Finally, the administration will need to work with Congress on 
legislation that would allow the President to establish a single U.S. 
export control licensing agency.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                                 BUDGET

    4. Senator Begich. Mr. Panetta, Secretary Gates and Admiral Mullen 
have recently been vocal about DOD being unable to sustain any more 
cuts to force structure. I do not agree that DOD is in a position where 
it cannot achieve additional cost savings and efficiencies through 
elimination of poor performing programs and a reassessment of 
priorities and requirements, especially in light of some requests made 
this year by DOD which do not make fiscal sense and are not in the best 
interest of the force. For instance, DOD is requesting $804 million to 
continue developing the Medium Extended Air Defense System (MEADS). Yet 
we will not procure this system and based on the programs past 
performance we will not get anything viable out of continued 
development. Additionally, DOD intends to carry out tour normalization 
in Korea. Moving dependents to this increasingly volatile area will 
cost billions in military construction and basic housing allowance over 
the long term. It doesn't make fiscal sense or common sense. Another 
example is the realignment of marines to Guam. The cost is astronomical 
and the agreement may not be executable and need re-examining as 
Chairman Levin has pointed out this year. The Government Accountability 
Office (GAO) has also identified several actions DOD could take to 
eliminate redundancy and save money. If confirmed, will you closely 
examine previous decisions and agreements that are costing taxpayers 
billions of dollars and are not enhancing national security or 
providing for our military?
    Mr. Panetta. The Department has begun a comprehensive review of the 
defense programs in light of the current fiscal environment. Everything 
is on the table and we will assess each program in terms of the 
contribution the program makes to our national security strategy.

    5. Senator Begich. Mr. Panetta, what type of review will you 
conduct?
    Mr. Panetta. I will continue the comprehensive review begun by 
Secretary Gates and bring it to a conclusion by this fall.

    6. Senator Begich. Mr. Panetta, if confirmed, how will you manage/
prioritize DOD's budget in this time of scare resources to ensure the 
readiness of our forces but eliminate wasteful spending?
    Mr. Panetta. During both the current comprehensive review and the 
development of subsequent budgets, I will ensure we protect our 
essential military capabilities while continuing to pursue additional 
efficiencies, streamline operations, control acquisition cost growth, 
and identify lower priority efforts that can be eliminated or 
curtailed. That said, difficult choices will have to be made to operate 
within reduced resources.

                        AFGHANISTAN AND PAKISTAN

    7. Senator Begich. Mr. Panetta, I support eliminating the threat to 
U.S. national security in Afghanistan and Pakistan by defeating al 
Qaeda and preventing those countries from being safe havens again. 
However, like many of my colleagues, after a decade in the country I am 
concerned about an indefinite U.S. presence. In light of the recent 
killing of Osama bin Laden and elimination of many terrorists and 
insurgents, I believe we need a thorough threat assessment and to 
concisely define a realistic and achievable end-state. What is your 
assessment of our current strategy in Afghanistan and Pakistan?
    Mr. Panetta. Our strategy is working, but much work remains. 
Although the death of Osama bin Laden was a significant achievement in 
our Nation's effort against al Qaeda, his death does not mark the end 
of our efforts to disrupt, dismantle, and defeat al Qaeda and its 
affiliates. Al Qaeda and other extremist groups continue to threaten 
the United States and U.S. allies and partners from safe havens in 
Pakistan, and wish to reestablish safe havens in Afghanistan.
    In Afghanistan, the progress that we have made over the past 16 
months in driving the Taliban from their home territory in Helmand and 
Kandahar is evidence that the insurgency is under intense pressure and 
that their capabilities are being degraded. We have reversed the 
insurgency's momentum in many key areas and are now making strides with 
the Afghans to enable a government capable of providing basic services 
and security. The implementation of this strategy has moved us closer 
to our desired end-state of an Afghan state capable of repelling 
insurgent threats to the central government, and of denying the 
reestablishment of a safe haven for al Qaeda.
    Although our relationship with Pakistan is a challenging one, 
continued cooperation with Pakistan is important to maintaining 
necessary pressure on al Qaeda leadership and the networks that provide 
it support and safe haven, at a time when it is most vulnerable. Al 
Qaeda vulnerability in the wake of the death of Osama bin Laden 
presents an historic opportunity not only for us, but also for 
Pakistan, to advance our shared interests and strengthen our 
cooperation in eradicating terrorist networks that threaten both 
nations, as well as our partners in the region and the world. I will 
continue to seek Pakistan's unambiguous support in the fight against al 
Qaeda and the regional syndicate of terrorist networks.

    8. Senator Begich. Mr. Panetta, what is your assessment of the 
threat to U.S. national security in the region?
    Mr. Panetta. [Deleted.]

    9. Senator Begich. Mr. Panetta, how do you view the United States' 
long-term commitment--financially, reconstruction, and security-wise?
    Mr. Panetta. The United States and the international community have 
sacrificed an extraordinary amount--in lives and resources--for the 
Afghan people. We remain committed to assisting Afghanistan in seeking 
a secure Afghanistan that is free of al Qaeda safe-havens. Ultimately, 
however, the Afghans must be responsible for taking the lead for 
security in their country, and the transition process through 2014 will 
support this.
    President Obama and President Karzai have agreed that the United 
States and Afghanistan should have an enduring strategic partnership 
beyond 2014. The North Atlantic Treaty Organization (NATO) and the 
international community have also made clear that their commitment to 
Afghanistan is enduring and will continue beyond the completion of the 
transition to Afghan security responsibility. We are currently engaging 
with the Afghans to outline in broad terms a vision for our long-term 
cooperation and presence.
    Afghanistan will require international assistance for many years to 
come; this is the reality of over 30 years of war. Our assistance, 
however, must be focused on helping the Afghans take full 
responsibility for their own future. We need to ensure that as a nation 
they begin to develop the capacity and the resources they need to 
reduce their reliance on international aid.

    10. Senator Begich. Mr. Panetta, what is your assessment of 
President Hamid Karzai as a partner?
    Mr. Panetta. President Karzai is the democratically elected leader 
of Afghanistan, and we are committed to working with him to achieve our 
shared objectives. U.S. policy toward Afghanistan is not contingent on 
a single leader; our commitment is to the people of Afghanistan, based 
on the core interests that we share.
    President Karzai faces a difficult situation in Afghanistan. He is 
fighting an insurgency with the assistance of more than 140,000 foreign 
forces. The burden of this war has been great on the Afghan people. 
They have been traumatized by some 30 years of war. Inevitably, there 
will be times of tension or disagreement, and just as President Karzai 
needs to listen to our concerns, we also need to listen carefully to 
his. President Karzai sometimes airs these concerns in ways we find 
unhelpful. But ultimately, he appreciates what the United States is 
doing and the sacrifices made by our forces.

    11. Senator Begich. Mr. Panetta, what do you see as the role for 
DOD in building the capacity of the Government of Afghanistan to 
deliver services, provide better governance, improve economic 
development, and fight corruption in Afghanistan?
    Mr. Panetta. Although the Department of State (DOS) has the lead 
for governance and economic development activities in Afghanistan, DOD 
brings capabilities and resources that augment civilian efforts, 
particularly in contested areas. As part of the counterinsurgency 
strategy, U.S. military forces also support developing Afghan 
governance and economic capacity, particularly at the district and 
provincial levels. U.S. military forces use Commanders' Emergency 
Response Program funds to carry out small-scale projects designed to 
meet urgent humanitarian relief requirements or urgent reconstruction 
requirements of the population, with a focus on short-term stability 
rather than long-term development. Military commanders provide co-
leadership of Provincial Reconstruction Teams, and generally are key 
partners of Afghan Government officials at the district level.
    Further, the President's December 2009 strategy review designated 
DOD as having primary responsibility for building capacity within the 
Ministry of Defense and Ministry of Interior. This includes a range of 
responsibilities to help build ministerial capacity to recruit, train, 
equip, and sustain their own forces. DOD also contributes to anti-
corruption efforts through its Shafafiyat task force and its support to 
the Ministry of Interior's law enforcement activities.

    12. Senator Begich. Mr. Panetta, do you have concerns with the 
Afghan Government's ability to sustain our efforts--like funding their 
own security forces? What more can we be doing?
    Mr. Panetta. After 30 years of war, the institutional and economic 
capacity of Afghanistan is badly damaged. Nonetheless, Afghanistan has 
several areas with great potential for economic development and revenue 
generation, but we expect that the Afghan Government will require 
international assistance for years to come to realize that potential. A 
key aim of U.S. assistance, therefore, must be to help the Afghans take 
full responsibility for their own future, and we need to ensure that as 
a nation they begin to develop the capacity and the resources they need 
to reduce their reliance on international aid. This is why the design 
of U.S. Government-funded projects is increasingly focused on Afghan 
capacity to sustain those projects.
    Projects to help build the Afghan Government's capacity include 
improvements to the Afghan energy sector (a major catalyst for economic 
development), transportation and associated infrastructure to 
facilitate regional trade, improvements to the agricultural sector, and 
efforts to improve the Afghan Government's ability to collect customs 
revenue. In addition DOD has implemented programs through its Task 
Force for Business and Stability Operations (TFBSO) to connect outside 
investors to potential Afghan producers and to help Afghanistan build 
the capacity to develop its mineral and other natural resources in 
environmentally sound and sustainable ways.
    Aside from increasing the Afghan Government's capacity and revenue 
to sustain the current joint efforts with the United States, we 
anticipate that costs for Government services, such as the funding the 
Afghan National Security Forces (ANSF), could be adjusted over time. 
Detailed planning for long-term ANSF sustainment is an ongoing, active 
effort. The Combined Security Transition Command-Afghanistan is 
collaborating with the Office of the Secretary of Defense, the Joint 
Staff, and NATO to analyze the long-term requirements for ANSF 
capability in light of current fiscal constraints. We envision a 
continuing role for the United States and expect continued 
contributions from international donors. To that end, before retiring, 
then-Secretary of Defense Gates challenged our partners in the 
International Security Assistance Force (ISAF) to contribute a combined 
1 billion Euros annually to the NATO Afghan National Army Trust Fund. 
The Department is working with our international partners to pursue 
that initiative.

    13. Senator Begich. Mr. Panetta, if confirmed, will you support the 
drawdown in July?
    Mr. Panetta. I will support the President's decision.

    14. Senator Begich. Mr. Panetta, how long should the drawdown take?
    Mr. Panetta. The pace and scope of the drawdown should take into 
account security and other conditions on the ground. I will listen to 
the recommendations from the commanders and provide my best military 
advice to the President. A successful transition of security lead to 
ANSF requires careful planning and implementation.

    15. Senator Begich. Mr. Panetta, what is your assessment of the 
progress in developing a professional and effective ANSF?
    Mr. Panetta. Progress in developing professional and effective ANSF 
has been steady. One hundred thousand have been added to the rolls of 
the ANSF since the establishment of NATO Training Mission-Afghanistan 
(NTM-A) in November 2009. NTM-A has set the conditions for enhancing 
professionalism by the opening of twelve branch schools in the past 
year, implementing an aggressive literacy program, and establishing 
leadership training for officers and non-commissioned officers (NCOs). 
The focus this year is on training Afghan trainers to train their own. 
A sign of progress in this regard is the graduation 2 weeks ago of 26 
new Sergeants Major from the Sergeant Major Academy--the first class 
trained solely by Afghan Instructors and leaders. Similarly the 
Commander of ISAF Joint Command (IJC) has led improvements in the 
operational effectiveness of the ANSF through partnering. Ninety-Five 
percent of all Afghan Kandaks (battalions) are partnered with coalition 
forces. In the ISAF's main effort operation in Kandahar Province, 
HAMKARI, ANSF comprise 60 percent of the total forces and are 
increasingly taking the lead in planning and executing operations. The 
response to the recent Taliban attacks in Kandahar City on 7 May 2011 
was an example of the improving effectiveness of the ANSF. They dealt 
with the attackers in a deliberate manner, eliminating the threat with 
minimal casualties and limited ISAF support. Clearly there are 
challenges and issues as we continue to grow and develop the ANSF, but 
commanders at all levels are working shoulder to shoulder with their 
Afghan counterparts to resolve them. I am confident that we can proceed 
with transition of security responsibilities in designated areas to the 
ANSF, and meet our goal of ANSF lead for security countrywide in 
Afghanistan by the end of 2014.

    16. Senator Begich. Mr. Panetta, if confirmed, will you make it a 
goal to transfer the security mission to the Afghans sooner than 2014?
    Mr. Panetta. President Karzai established the 2014 transition goal, 
which NATO subsequently endorsed based on joint assessments with the 
Afghan Government about the state of the insurgency, the rate at which 
the ANSF can develop their capability to take over security lead, and 
the level of governance capacity and development throughout the 
country. Actual conditions on the ground will drive the ultimate rate 
and sequence of transition, but the 2014 goal remains a realistic 
target for a responsible transition.

    17. Senator Begich. Mr. Panetta, if confirmed, what changes, if 
any, would you recommend for U.S. relations with Pakistan, particularly 
in terms of military-to-military relations?
    Mr. Panetta. I would continue to seek Pakistan's unambiguous 
support in the fight against al Qaeda and its affiliates operating in 
the Afghanistan-Pakistan region. Pakistan, however, must choose what 
kind of partnership it seeks. Pakistan's own security depends on its 
civilian and military efforts to deny safe havens in the tribal and 
border regions and to extend economic opportunity and the government's 
writ to those areas. It is also in the United States' interest that 
Pakistan take these steps. Strong military-to-military relations and 
assistance can be an important means of building Pakistan's 
capabilities for this effort, but it will also require a mutual effort 
to build and sustain trust in a commitment to achieving shared 
objectives.

                       LAW OF THE SEA CONVENTION

    18. Senator Begich. Mr. Panetta, the United Nations Convention on 
the Law of the Sea (CLOS) is pending consideration in the U.S. Senate. 
I support ratification of this treaty and know the Arctic is an 
increasingly important region. What is your view on whether or not the 
United States should join the CLOS?
    Mr. Panetta. I support U.S. accession to the 1982 Law of the Sea 
Convention (LOS Convention). The rights guaranteed under the LOS 
Convention are essential for the global presence of U.S. forces, 
enabling large-scale movement of materiel through the Straits of 
Gibraltar, Malacca, Hormuz, and Bab el-Mandeb and into the Persian Gulf 
to sustain our combat forces into Iraq and Afghanistan. These rights 
also permit the U.S. submarine fleet to transit submerged through key 
choke points on critical missions and allow the U.S. Air Force to 
conduct global missions without overflying foreign national airspace. 
Finally, freedom of navigation and overflight rights ensure the 
uninterrupted flow of commerce to and from our shores.

    19. Senator Begich. Mr. Panetta, how would being a party to the 
CLOS help or hinder the United States' security posture?
    Mr. Panetta. Becoming a Party to the 1982 Law of the Sea Convention 
(LOS Convention) would enhance our security posture by enabling the 
United States to reinforce the LOS Convention's freedom of navigation 
and overflight rights, including transit passage through strategic 
straits, and preserve our rights and the duties of all States in the 
Arctic. In addition, becoming a Party to the LOS Convention would: 
support combined operations with coalition partners; support the 
Proliferation Security Initiative (PSI); establish undisputed title to 
our extended continental shelf areas; and bolster our leadership in 
future developments in the law of the sea. Accession to the LOS 
Convention would also add to DOD credibility in a large number of Asia-
focused multilateral venues where law of the sea matters are discussed.

    20. Senator Begich. Mr. Panetta, what will you do to get this 
treaty to the Senate for approval?
    Mr. Panetta. I look forward to supporting the administration's 
continued engagement with the Senate toward favorable consideration of 
U.S. accession to the 1982 Law of the Sea Convention (LOS Convention).
    I have been and remain a strong advocate of the LOS Convention. I 
will support the administration's goal of ratification of this treaty.

                     GROUND-BASED MIDCOURSE DEFENSE

    21. Senator Begich. Mr. Panetta, the Ground-based Midcourse Defense 
(GMD) system in Alaska and California is the only missile defense 
system that protects the U.S. Homeland from long-range ballistic 
missile attacks. This is an extremely complex program that was 
simultaneously fielded and developed. It is our only line of defense 
and it is imperative there is confidence in the system and the 
appropriate resources are allocated. If confirmed, will you support the 
2010 Ballistic Missile Defense Review which established GMD as a 
priority and ensure the program is resourced to be able to protect the 
U.S. Homeland against evolving threats?
    Mr. Panetta. I support the priority given to GMD in the 2010 
Ballistic Missile Defense Review.

    22. Senator Begich. Mr. Panetta, what role do you see GMD playing 
in the long-term security of the Nation?
    Mr. Panetta. The protection of the United States against a 
ballistic missile attack remains a vital security priority. As the 
Secretary of Defense, I will work to ensure United States citizens have 
the best possible defenses against such an attack. With GMD and a 
successful intercept, the United States retains a broader range of 
response options than without. I also believe that threat nations will 
be less inclined to prosecute a ballistic missile attack against the 
United States if they believe that we have the capability to destroy 
the ballistic missile in flight, before it reaches its target. For 
these reasons, we must continue to maintain a viable defense and 
continue to evolve our capability so that it is effective against 
future threats.

                RARE EARTH-DEPENDENCY ON FOREIGN SOURCES

    23. Senator Begich. Mr. Panetta, I am concerned about a potential 
threat to U.S. national security and military operability: the issue of 
rare earth elements and our military's dependence on unreliable foreign 
nations for our supply. China produces approximately 97 percent of the 
world's rare earth supply and has restricted export quotas of rare 
earth elements based on their own internal demand. Rare earths are 
essential components to clean energy technologies. They are also 
critical to many modern defense applications, such as radar and sonar 
systems and precision-guided munitions. DOD comprises a small segment 
of aggregate rare earth demand, but we cannot function effectively 
without these elements. Our most critical weapons systems rely on these 
elements. Please share your view on the importance of rare earths and 
our current dependency on China for them.
    Mr. Panetta. I share your concerns that access to certain 
individual rare earth elements and components may be an issue. We must 
work to ensure that the U.S. has adequate supplies of the needed 
elements and carefully monitor supply and demand.

    24. Senator Begich. Mr. Panetta, if confirmed, will you ensure DOD 
adequately and appropriately evaluates near-, mid-, and long-term 
supply-chain availability, determines aggregate defense demand, and 
establishes a plan to address potential supply chain vulnerabilities?
    Mr. Panetta. Yes. While it appears expected domestic production of 
rare earth elements should be substantial by the end of next year, I 
remain concerned that access to certain individual rare earth elements 
and components may be an issue and will continuously monitor the 
situation.

    25. Senator Begich. Mr. Panetta, where do you see it in the list of 
priorities of DOD?
    Mr. Panetta. Given the fact that rare earth elements are a critical 
component of our defense capability, availability of these elements 
will be one of my priorities and areas of focus.

    26. Senator Begich. Mr. Panetta, how long should it take to develop 
a plan?
    Mr. Panetta. Identifying individual rare earth elements of concern 
to the defense industrial base is the focus of the rare earth materials 
assessment required by Congress under section 843 of the Ike Skelton 
National Defense Authorization Act for Fiscal Year 2011. Depending upon 
its findings regarding defense demand and market supply for the 
individual elements, the assessment will include, as appropriate, 
options for mitigating risk in order to ensure the availability of the 
necessary rare earth materials or components. It should be possible to 
identify strategy options within months after identifying the elements 
of concern.

                           RESERVE COMPONENT

    27. Senator Begich. Mr. Panetta, the National Guard and Reserves 
are critical to our force. For the last decade they have performed 
alongside their Active Duty brethren with honor and distinction as an 
operational force instead of a strategic Reserve. If any lesson was 
learned it is that they are critical to a ready force and during times 
of high operational tempo. Over the last several years there has been a 
total force approach to better incorporate the Reserve component. I 
worry, however, business will go back to usual and funding and support 
for the Reserve component will dramatically be reduced by the Services 
thereby compromising their readiness. If confirmed, how will you 
approach the Reserve component force structure role as operations 
decrease?
    Mr. Panetta. I agree that the Guard and Reserve have made major 
contributions to the Department's efforts over the last 10 years, and 
have been integral to the Total Force. Our Reserve component is a 
valuable, highly experienced and well-trained element of that force, 
and continuing to support their readiness is critical. Given the 
current era of conflict and the broad range of security challenges on 
the horizon, sound decisions regarding the rebalancing of capabilities 
and aggregate capacity of the Total Force are essential to defending 
and advancing our national interests. It will be my approach to make 
the most efficient use of the Total Force--Active, Guard, Reserve, 
civilians, and contractors. In order to reduce stress on the overall 
force, maintain an All-Volunteer Force, and leverage the skills and 
experience resident in the Guard and Reserve, their continued 
contribution in the future is critical.

    28. Senator Begich. Mr. Panetta, if confirmed, how will you ensure 
total force integration initiatives, like associate units in the Air 
Force, undergo a thorough requirements scrub and are properly resourced 
to reflect the steady state requirements of the unit?
    Mr. Panetta. In order to ensure Total Force integration, I would 
work to use the Guard and Reserve in partnership with the Active Forces 
to best advantage, increasing the capacity of, and reducing the burden 
on, all our military personnel and their families. I will work to 
ensure that the gains made in readiness, training, and equipping in the 
Reserve components over the last decade are preserved and maintained, 
reflecting the steady state demands on our Armed Forces.
    We must adequately resource and effectively employ all elements of 
the Total Force, consistent with their assigned missions. Accordingly, 
I will continue the significant work by the Department and the Services 
to sustain and refine the effectiveness of our total Force.
    To this end, Secretary Gates approved a Quadrennial Defense Review 
(QDR)-directed Comprehensive Review of the Future Role of the Reserve 
Components, which outlined the organizational and operational benefits 
of initiatives such as the associate units in the Air Force, along with 
other effective employment options, which use the Guard and Reserve to 
best advantage. As this review was approved by Secretary Gates, it will 
be my approach to take these important recommendations under my review. 
In addition, we have defined the accepted use of Reserve component 
units and personnel in response to unforeseen outside the continental 
U.S. (OCONUS) events, which I will ensure that the Department embraces 
as the United States continues to act as a stabilizing force throughout 
the world.

                               DWELL TIME

    29. Senator Begich. Mr. Panetta, when you visited me we talked 
about the high operational tempo of the brigades and units in Alaska. 
Currently, the 1/25 Stryker Brigade Combat Team is deployed to 
Afghanistan and the other brigade--the 4/25 Airborne Brigade Combat 
Team--will deploy at the end of the year. The brigades have not yet had 
a 1:2 dwell time. Dwell time is crucial to an all-volunteer healthy 
force. Please discuss your view on the importance of dwell time to the 
force.
    Mr. Panetta. I agree-dwell time is critically important to the 
sustainment of the all-volunteer force. The Department struggles with 
balancing critical operational requirements and the burden we are 
asking some of our servicemembers to bear.
    Six years ago, DOD established business rules designed to protect 
dwell time. The Service Chiefs, combatant commanders, OSD, the 
Chairman, and ultimately the Secretary of Defense review any deployment 
order that exceeds dwell time goals; extends a unit in theater more 
than 14 days beyond what they were originally told; or is longer than 
365 days. These individual reviews look for other ways we can meet the 
requirement without breaking a given unit's dwell. Frequently, options 
include similarly capable units, volunteers, and task organizing units 
to shield components that were deployed more recently than their parent 
unit.
    We currently have a deploy-to-dwell time of 1:1 and that will 
increase to 1:2 by October 2011 for all Active Duty members. The goal 
for reservists is 1:5.

    30. Senator Begich. Mr. Panetta, in your view, will the Army and 
Marine Corps planned manpower decreases facilitate the attainment of 
DOD's dwell time objectives? If so, how? If not, do the cuts make 
sense?
    Mr. Panetta. The dwell times for our deploying forces are primarily 
driven by our commitment in Afghanistan and other operations around the 
world. I will take into consideration the conditions on the ground and 
our ability to meet our strategic objectives before deciding the 
appropriate course of action for force reductions. I will continue to 
monitor dwell times and future manpower reductions as we move forward.
    In the meantime, the Department will continue to use existing 
processes to carefully vet all deployment orders that unduly burden our 
servicemembers. This series of individual reviews, from the Service 
Chiefs up to me, carefully considers all viable options for mitigating 
deployment stress. Where there are no viable alternatives I ultimately 
consider the criticality of the requirement, relative to the harmful 
effects of the deployment. Unfortunately, we have not been able to 
eliminate dwell shortfalls completely and this concerns me. The 
Department must continue to look for solutions in order to maintain 
this superb force.

    31. Senator Begich. Mr. Panetta, what should be the goal for dwell 
time?
    Mr. Panetta. The Department goal for dwell time for our Active 
component is a ratio of 1:2. The goal for our Reserve component is a 
ratio of 1:5.

 department of defense and department of veterans affairs collaboration
    32. Senator Begich. Mr. Panetta, Secretary of Defense Gates and 
Secretary of Veterans Affairs Shinseki have pledged to improve and 
increase collaboration between their respective departments to support 
military servicemembers as they transition to veteran status, in areas 
of health and mental health care, disability evaluation, and 
compensation. If confirmed, what role would you expect to play in 
ensuring that DOD and the Department of Veterans Affairs collaborate?
    Mr. Panetta. I understand significant improvements have been made 
in DOD-VA collaboration in the last few years, but much work remains to 
be done. I will ensure that DOD continues to work closely with VA to 
support servicemembers and their families, and I look forward to 
working with Secretary Shinseki.

                           SUICIDE PREVENTION

    33. Senator Begich. Mr. Panetta, the number of suicides in each of 
the Services has increased in recent years. The Army released a report 
in July 2010 that analyzed the causes of its growing suicide rate and 
examined disturbing trends in drug use, disciplinary offenses, and high 
risk behaviors. In addition, studies conducted by the Army of soldiers 
and marines in theater are showing declines in individual morale and 
increases in mental health strain, especially among those who have 
experienced multiple deployments. The 4/25 in Alaska has experienced 
one confirmed suicide and two suspected suicides within the last month. 
This brigade has experienced a high operational tempo and will deploy 
again late this year. These incidents are tragic, unfortunate, and 
impact the entire unit. In your view, what role should DOD play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the Reserve components?
    Mr. Panetta. The Department should play an active role in shaping 
policies to help prevent suicide no matter where it may occur and 
whether they are Active, Reserve, or Guard. Suicide prevention is a 
very important issue within the Department. Each Service acknowledges 
the important role that leaders, both officer and Non-Commissioned 
Officers (NCO), play in building resilience among those under their 
command. At the OSD level, we have established a working group to 
better integrate the efforts and programs across Services. To this end, 
we are specifically looking at training leadership, effective peer-to-
peer programs, and outreach to Guard and Reserve members. As Secretary, 
I will ensure the Department is fully engaged on this issue.

                            ENERGY SECURITY

    34. Senator Begich. Mr. Panetta, the 2010 QDR identified energy 
security as one of four key priorities for reform because doing so will 
reduce risks to military personnel, safeguard strategic interests, and 
ensure troop readiness. Recognizing this, General Petraeus recently 
issued guidance to the troops in Afghanistan asking them to reduce 
energy consumption. I know DOD and the Services understand how 
vulnerable our reliance on oil, especially oil from foreign countries, 
has made us as a Nation and are taking many steps to alleviate 
dependency. However, the bottom line today is the military needs access 
to fossil fuels for energy needs. I prefer those sources to be domestic 
instead of overseas to ensure access and strengthen our national 
security. Please describe your view of how reliance on foreign oil for 
fuel impacts the military and national security.
    Mr. Panetta. America's dependence on foreign oil and fossil fuels 
puts our national security at risk. For DOD, our reliance on oil shapes 
our missions--both strategically and tactically. This is especially 
true because we seek to purchase fuel as close to the fight as 
possible--for both financial and operational reasons. Because assured 
access to energy is a core part of fighting and winning the Nation's 
wars, we can and must do better as a Department in improving the 
efficiency of our use and the range of energy alternatives available to 
our forces.
    Success in this area will not come easily for DOD. But global 
energy trends make success imperative. They include the rising global 
demand for energy, changing geopolitics, and new threats, which mean 
that the cost and availability of conventional energy sources will be 
less certain in the future. By changing the way we power the force now 
and in the future, America will have a military that is better able to 
project and sustain power around the world for the full spectrum of 
military missions.

    35. Senator Begich. Mr. Panetta, what is your understanding of 
steps that have been taken to alleviate consumption of oil for current 
operations and what impact have those efforts had?
    Mr. Panetta. DOD components are taking steps to include energy as a 
consideration in how they organize, train, and equip the Nation's 
warfighters. In June 2011, the Department released its initial 
``Operational Energy Strategy.'' The Strategy is the DOD roadmap for 
transforming energy use in military operations and improving energy 
security for the warfighter. Additionally, the Services have each 
produced mission-specific energy strategies. Components are 
implementing these strategies to improve their energy use.
    The Department is taking steps to better track energy use, and is 
testing and fielding systems to reduce the energy demand of our forces 
and use alternate sources. Our technical initiatives include smart 
micro-grids; energy-efficient shelters; solar energy; fuel cells; 
waste-to-energy systems; hybrid engines; lightweight and low drag 
materials; improved power generation and distribution; and energy 
storage solutions. In addition, the Department is making non-materiel 
changes, such as better aircraft routing and loading.
    Many of these efforts are being fielded now and are making 
immediate operational gains.

    36. Senator Begich. Mr. Panetta, in your view, what remains to be 
done?
    Mr. Panetta. DOD is the Nation's single largest user of energy. In 
2010, the Department consumed over 5 billion gallons of petroleum fuels 
for military operations.
    For the long term, if we are to significantly reduce our volume of 
fuel use, we must systematically consider the risks and costs 
associated with our energy use as we build the future force. As our 
experiences in Iraq and Afghanistan demonstrate, we cannot assume 
secure logistics. The Department must integrate energy security 
considerations into the full range of planning and force development 
activities, including the requirements and acquisition processes.
    Congress has given the Department the statutory tools it needs to 
implement this change, and we are beginning to do so. If the Department 
requires additional authority, I will not hesitate to seek the 
necessary Congressional authorization.

    37. Senator Begich. Mr. Panetta, if confirmed, what steps will you 
take to alleviate dependency on foreign sources of energy, and 
ultimately decrease reliance on oil for fuel?
    Mr. Panetta. While the Department is a significant consumer of 
energy, it only accounts for about 1 percent of the energy all 
Americans use. The cost of America's national energy consumption, 
particularly oil, is too high, both in the billions of dollars the 
Nation sends overseas, the geostrategic consequences, and costs to the 
warfighter. The solutions to the Nation's energy challenges require 
action at every level of Government as well as from the private 
industry and every American. The Department has an opportunity to 
reduce these costs by achieving energy efficiencies while leading the 
way for the Nation by focusing on warfighter requirements.

                       PRIORITIES AND CHALLENGES

    38. Senator Begich. Mr. Panetta, if confirmed, what priorities will 
you establish?
    Mr. Panetta. My top priority as Secretary of Defense is to ensure 
the security of the American people.
    We face a number of challenges: first, prevailing in the current 
conflicts in Iraq and Afghanistan and in the fight against al Qaeda; 
second, keeping weapons of mass destruction out of the hands of 
terrorists and rogue nations; third, preparing to counter future 
military threats; fourth, preserving the finest fighting force in the 
world and taking care of servicemembers and their families; and fifth, 
continuing the reforms DOD's leadership has initiated which will be 
crucial in this time of budget constraints.

    39. Senator Begich. Mr. Panetta, if confirmed, what do you believe 
will be your greatest challenge? Do you have a plan for addressing that 
challenge?
    Mr. Panetta. We must ensure that we prevail in the conflicts in 
which we are now engaged. In Afghanistan, we must continue to degrade 
the Taliban, train the Security Forces, and help the government take 
ownership for the country's progress and security. And in Iraq, we must 
assure that the Iraqi military and security forces are prepared to 
safeguard their nation.
    As we do that, I am very aware that we must be highly disciplined 
in how we spend the taxpayer's precious resources. The days of 
unlimited defense budgets are over. Our challenge will be to design 
budgets that eliminate wasteful and duplicative spending while 
protecting those core elements we need for our Nation's defense. I do 
not believe that we have to choose between strong fiscal discipline and 
strong national defense. We owe it to our citizens to provide both.
    I will also be a tireless advocate for our troops and their 
families. It is their sacrifice and dedication that have earned the 
respect of a grateful nation, and inspired a new generation to wear the 
uniform of our country. They put their lives on the line to fight for 
America, and I will just as surely fight for them and for the families 
who support and sustain them.
                                 ______
                                 
          Question Submitted by Senator Kirsten E. Gillibrand

                         VIOLENCE AGAINST WOMEN

    40. Senator Gillibrand. Mr. Panetta, in conflicts around the world, 
rape of women and girls has become one of the most horrific weapons of 
choice used systematically to attack civilians, devastate families, and 
destabilize societies. Violence against women and girls is frequently 
an early indicator of repressive regimes and instability and it is 
often an obstacle to security, stabilization, and the development of a 
sustainable peace. Despite the recognition of rape as a war crime, a 
crime against humanity, and a form of genocide, over the years the 
brutality and frequency of this crime has only increased.
    Could you describe the steps taken by DOD to:

        <bullet> incorporate training on prevention and response into 
        the basic training curricula of foreign military forces and 
        judicial officials;
        <bullet> ensure that U.S. assistance to units involved in 
        regional or multilateral peacekeeping operations includes such 
        training; and
        <bullet> incorporate training on preventing and responding to 
        violence against women and girls when U.S. military personnel, 
        military contractors, and military observers are to be deployed 
        in humanitarian relief, conflict, and post-conflict settings.

    Mr. Panetta. DOD recognizes that sexual and gender-based violence 
(SGBV), particularly when used as a tactic of war, is not only a human 
rights issue, but also an obstacle to conflict resolution and lasting 
security. DOD has taken important steps to build the capacity of 
partner militaries, as well as DOD personnel, to prevent and respond to 
SGBV. The Defense Institute of International Legal Studies (DIILS) 
provides training on prevention and response to SGBV to foreign 
military units receiving security assistance from the United States. 
DIILS addresses SGBV as part of seminars such as ``Human Rights and the 
Law of Armed Conflict'' and ``Developing a Professional Military 
Force.'' In addition, geographic Combatant Commands provide targeted 
training to address specific country contexts. For example, DIILS and 
U.S. Africa Command train military judicial personnel in the Democratic 
Republic of the Congo to investigate and prosecute SGBV crimes.
    As part of its efforts to build the capacity of partner countries 
to participate in international peacekeeping operations, the Global 
Peace Operations Initiative (GPOI) provides training to peacekeepers to 
protect civilians from SGBV. Geographic Combatant Commands implement 
half of GPOI activities, which are funded by DOS.
    U.S. personnel also receive pre-deployment training on preventing 
and responding to SGBV. Training on combating trafficking in persons 
(TIP) and on sexual assault prevention and response are required, 
including risk-reduction factors in specific deployment locations. 
Combatant Commands and the Military Departments also provide mission-
specific pre-deployment training that addresses SGBV. For example, all 
personnel who deploy to U.S. Southern Command's area of responsibility 
are required to take the ``Human Rights Awareness Education'' training 
prior to deployment. U.S. Southern Command's training module includes 
TIP specific scenarios, information on identifying victims, and 
appropriate responses.
    DOD is developing an action plan on women, peace, and security to 
build on current efforts, including integration of prevention and 
response to SGBV into training of partner militaries, peacekeepers, and 
DOD personnel. This will be integrated into the National Action Plan 
that the National Security Staff is developing with DOS, USAID, and 
DOD.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                          ENERGY REQUIREMENTS

    41. Senator McCain. Mr. Panetta, section 526 of the Energy 
Independence and Security Act (EISA) of 2007 (P.L. 110-140) stated:

          ``Procurement and Acquisition of Alternative Fuels. No 
        Federal agency shall enter into a contract for procurement of 
        an alternative or synthetic fuel, including a fuel produced 
        from nonconventional petroleum sources, for any mobility-
        related use, other than for research or testing, unless the 
        contract specifies that the lifecycle greenhouse gas emissions 
        associated with the production and combustion of the fuel 
        supplied under the contract must, on an ongoing basis, be less 
        than or equal to such emissions from the equivalent 
        conventional fuel produced from conventional petroleum 
        sources.''

    This provision effectively prevents DOD from procuring petroleum 
from Canadian tar sands sources, a vital energy supplier for the DOD 
mobility-related uses at our military bases along the northern tier of 
the United States. DOD has apparently ignored this provision as it has 
proven unworkable and completely unresponsive to the budgetary 
constraints and wartime needs of DOD. I might add that President Obama 
at Georgetown on March 30, 2011, stated: ``I set this goal knowing that 
we're still going to have to import some oil. It will remain an 
important part of our energy portfolio for quite some time, until we've 
gotten alternative energy strategies fully in force. And when it comes 
to the oil we import from other nations, obviously we've got to look at 
neighbors, like Canada and Mexico that are stable and steady and 
reliable sources.'' If confirmed, would you support DOD's current 
actions to receive and use oil from Canada, a strategic ally and 
trading partner?
    Mr. Panetta. My understanding of this issue is that this particular 
provision has not prevented the Department from meeting our energy 
needs. I am also told that this is an area of active litigation for the 
Department, so it would be inappropriate for me to comment further on 
this issue.

    42. Senator McCain. Mr. Panetta, in your view, what would be the 
burden placed on DOD from a fiscal perspective and on DOD contracting 
personnel if required to enforce a strict compliance to section 526 of 
EISA?
    Mr. Panetta. My understanding is that the Department is already in 
strict compliance with the provision.

    43. Senator McCain. Mr. Panetta, would you support legislative 
action that would repeal section 526 of EISA?
    Mr. Panetta. This is an issue I look forward to learning more 
about. I can say that energy security and, increasingly, climate change 
are key issues for the 21st century defense missions. As the 2010 QDR 
stated, ``although they produce distinct types of challenges, climate 
change, energy security, and economic stability are inextricably 
linked.'' Climate change and associated extreme weather events act as 
an accelerant of instability around the world, which places demands on 
civil and military institutions. As we make decisions about how we 
assure that U.S. forces have a reliable supply of energy, now and in 
the future, the Department must balance both energy security and 
climate security considerations.

                            DEFENSE BUDGETS

    44. Senator McCain. Mr. Panetta, in your answers provided to the 
committee prior to this hearing, you responded to a question about the 
impact of defense spending reductions on our national security by 
stating ``I will work to make disciplined decisions in ways that 
minimize impacts on our national security. But it must be understood 
that a smaller budget means difficult choices will have to be made. DOD 
is in the process of working through fiscal year 2011 with about $20 
billion less than what was requested by the President.'' If confirmed, 
what priorities will guide the comprehensive review and these difficult 
decisions?
    Mr. Panetta. I will ensure that we protect our essential military 
capabilities while continuing to pursue additional efficiencies, 
streamline operations, control acquisition cost growth, and identify 
lower priority efforts that can be eliminated or curtailed. That said, 
difficult choices will have to be made to live within a reduced Defense 
topline.

    45. Senator McCain. Mr. Panetta, how would you propose reining in 
spending in the short-term?
    Mr. Panetta. Each defense program must be assessed in terms of its 
contribution to the national security strategy. I will continue the 
effort begun by Secretary Gates to seek efficiencies, eliminate 
overhead, control costs, and identify lower priority efforts.

    46. Senator McCain. Mr. Panetta, is it time to stop the spending 
sprees that mark the end of each fiscal year for DOD program managers 
trying to spend every dime they have before funds expire?
    Mr. Panetta. I will vigorously investigate any indication of 
wasteful year-end spending.

    47. Senator McCain. Mr. Panetta, what would you do to eliminate 
wasteful spending?
    Mr. Panetta. I will build on the efficiencies identified by 
Secretary Gates and work with the Department's leadership to manage 
defense spending prudently. Reducing spending on any lower priority 
programs, or programs that are no longer needed, will be a key 
component of that management effort.

    48. Senator McCain. Mr. Panetta, Admiral Mullen stated recently 
that in the search for $400 billion in savings that ``two of the big 
places the money is, is in pay and benefits.'' He warned against the 
``relatively easy'' choice of cutting hardware while maintaining the 
increasing costs of pay and health care for military personnel, 
retirees, and their dependents and asserted that ``all things are on 
the table.'' In your advance policy questions, you talked about the 
need for a ``comprehensive review of the military pay and benefits 
structure to determine where costs can be contained.'' Do you agree 
with Admiral Mullen that personnel costs have to be included in the 
search for a solution to the response to a smaller DOD budget?
    Mr. Panetta. Yes, everything must be on the table. Any such effort 
should take into consideration that the Nation must continue to attract 
and support our men and women in uniform and their families in a wide 
variety of situations.

                     BASE REALIGNMENTS AND CLOSURES

    49. Senator McCain. Mr. Panetta, as you may know, DOD is required 
by law to complete base realignments and closures (BRAC) resulting from 
the 2005 BRAC round by September 15, 2011. Are you committed to DOD's 
compliance with the BRAC deadline established by law to the maximum 
extent practicable?
    Mr. Panetta. Yes. Of the 222 recommendations forwarded by the 
Commission to the President, the Department has a handful of 
recommendations facing scheduling challenges. The Department is working 
diligently to ensure we satisfy our BRAC legal obligations.
    In order to ensure no disruption to the full and complete 
implementation of each of the recommendations facing scheduling 
challenges, as well as continuity of operations, the Department has 
requested legislation that would provide the Secretary of Defense or 
Deputy Secretary of Defense with limited authority to extend the BRAC 
implementation period for up to 10 recommendations, for up to a year, 
when such an extension is necessary to ensure the operational readiness 
of units or functions being relocated as part of the recommendation. 
This legislation would not modify the substance of any BRAC 
recommendation nor would it eliminate the legal obligation to fully 
implement each recommendation; it merely would provide the Secretary or 
Deputy Secretary with limited authority to extend the implementation 
period.

    50. Senator McCain. Mr. Panetta, in your opinion, given the need to 
find another $400 billion over the next 12 years, should DOD conduct 
another round of BRAC to reduce excess infrastructure?
    Mr. Panetta. It is my understanding the Department has not asked 
for authorization for another Base Closure and Realignment (BRAC) and 
is very single mindedly focused on the current one and meeting current 
deadlines. Whether another round of BRAC is needed is something I will 
assess.

          DEFENSE FUNDS EARMARKED FOR NON-DEFENSE REQUIREMENTS

    51. Senator McCain. Mr. Panetta, in these times of fiscal austerity 
where DOD is making hard decisions about savings and efficiencies, DOD 
should not be spending DOD funds on non-DOD requirements like local 
roads, financial support for parks and recreation areas, and many other 
worthy causes that have no connection to military readiness. If 
confirmed, what would you do to ensure that funds provided to DOD are 
spent only on essential defense and national security requirements?
    Mr. Panetta. If confirmed, I will ensure that the President's 
Budget requests will reflect the level of funding that is required to 
meet essential defense and national security requirements each year. 
Once funds are appropriated, I will ensure that the Department will 
execute funds in accordance with the legislative direction provided in 
the annual appropriations acts.

                        DEFENSE INDUSTRIAL BASE

    52. Senator McCain. Mr. Panetta, the current DOD policy of relying 
on market forces to sustain the health of the industrial base may not 
account for instances where DOD is the sole customer for military 
unique weapons. Do you intend to continue the current initiative to 
develop an industrial base strategy?
    Mr. Panetta. The Department recognizes the defense industrial base 
is more global, commercial, and financially complex than ever before.
    The Department regularly addresses specific industrial-base 
concerns within programs and services and has also embarked on a more 
comprehensive sector-by-sector, tier-by-tier analysis of the industrial 
base. This approach will help inform future programmatic decisions, 
expand the scope of the Department's industrial base assessments, and 
create a database on industry for use as an input to many decision-
making processes across the Department.

    53. Senator McCain. Mr. Panetta, such a strategy will work best if 
there is open communication between defense officials and industry 
leaders so that industry can shape itself to meet the needs of DOD. 
Secretary Gates began a Secretary/Chief Executive Officer (CEO) 
dialogue to facilitate that communication. Do you intend to continue 
that dialogue?
    Mr. Panetta. I am committed to maintaining an open dialogue with 
industry and increasing the transparency within which we operate to the 
maximum extent permitted by law.

    54. Senator McCain. Mr. Panetta, the current export control regime 
is seen by some as reducing U.S. industries global competitiveness. 
What actions do you believe are necessary to be taken to improve the 
export control regime?
    Mr. Panetta. There are compelling national security arguments for 
fundamentally changing the regulations and procedures we have had in 
place since the Cold War for determining what weapons and dual-use 
equipment and technology may be exported and under what terms. Over the 
years, we have made incremental changes--but this has not been 
adequate. We need to establish new rules, organizations, and processes 
that deal effectively and efficiently with 21st century challenges. 
This is the basis for the ``four singles'' of the administration's 
export control reform effort: a single export control list, a single 
licensing agency, a single enforcement coordination agency, and a 
single information technology system for export licensing. The export 
control reform initiative is focused on protecting sensitive items and 
technologies that are the U.S. ``crown jewels''. By doing so, we would 
be better able to monitor and enforce controls on technology transfers 
with real security implications, while helping to speed the provision 
of equipment to allies and partners who fight alongside us in coalition 
operations. This revised export control system, based on revised 
controls and new licensing policies and procedures, would allow U.S. 
companies to compete more effectively in the world marketplace.

                     MILITARY SCHOOLS AND EDUCATION

    55. Senator McCain. Mr. Panetta, DOD is currently embarked on a 
$4.0 billion investment plan over the next 5 years to address the 
deteriorated facilities conditions of K-12 schools maintained and 
operated by DOD Education Activity (DODEA). The urgent requirement was 
revealed in a study requested by this committee which assessed the 
condition of DODEA schools worldwide and the impact of underinvestment 
of funding for replacements and renovations. As a result, Secretary 
Gates established a priority to ensure that the children of our 
military personnel are provided the best education opportunities in 
world-class facilities with the most current technology available. If 
confirmed, will you continue this firm and comprehensive commitment of 
funds over the next 5 years to upgrade DODEA schools?
    Mr. Panetta. Yes, I will continue to commit to funds for upgrading 
DODEA schools. As Secretary Gates recognized, I too believe we have an 
obligation to provide a quality education to dependents of our 
servicemembers, and part of this is ensuring the facilities are in good 
condition.

    56. Senator McCain. Mr. Panetta, what goals would you expect DODEA 
to maintain in carrying out the upgrade and modernization of K-12 
schools owned by DODEA?
    Mr. Panetta. The Department's goal is to provide schools that will 
best showcase a 21st century education. We can do this by enhancing the 
curriculum to better support Science, Technology, Engineering, and Math 
(STEM) programs, and use technology to create a teaching environment 
that would increase student performance. Our future schools will focus 
on how to best improve student learning and incorporate features that 
can transition schools to a facility that incorporates various teaching 
tools to accommodate differentiated learning to benefit all students.

    57. Senator McCain. Mr. Panetta, should our commitment to quality 
K-12 education facilities extend to the use of DOD funds to improve 
schools owned and operated by local school districts?
    Mr. Panetta. It is DOD policy to first rely on local education 
agencies to provide for the education of military children. In some 
locations, the Department has been able to make property on its 
installations available for local educational agencies to construct, 
operate, and maintain local schools. While the Department continues to 
believe that school maintenance and repair is a local responsibility, 
it cannot ignore the fact that its children are currently being 
educated in less than ideal facilities. Recognizing this, Congress 
recently appropriated $250 million ``to make grants, conclude 
cooperative agreements, or supplement other Federal funds to construct, 
renovate, repair, or expand elementary and secondary public schools on 
military installations in order to address capacity or facility 
condition deficiencies at such schools.''
    The Department is reviewing needs of local schools on bases to 
determine which have the most serious facility deficiencies.

    58. Senator McCain. Mr. Panetta, what guidelines for DOD investment 
would you establish to manage the funding provided to local districts?
    Mr. Panetta. As required by section 8109 of Public Law 112-10, the 
Department will give ``priority consideration to those military 
installations with schools having the most serious capacity or facility 
condition deficiencies.'' We are implementing this requirement and will 
manage the Department's investment accordingly.

                          FINANCIAL MANAGEMENT

    59. Senator McCain. Mr. Panetta, the business processes and systems 
at DOD lack the controls and discipline necessary for DOD to produce 
auditable financial statements. This impacts the quality and timeliness 
of information you will be receiving for critical decisions around how 
to best utilize taxpayers' money. Secretary Gates recently conveyed his 
frustration on this issue in a speech before the American Enterprise 
Institute. What specific actions do you plan to take to ensure DOD 
achieves the September 2017 date for obtaining an audit opinion of 
DOD's financial statements?
    Mr. Panetta. I intend to ensure the DOD financial statements are 
audited as soon as possible. Financial statement audit opinions provide 
the public a measure of confidence in the financial management of 
Federal agencies. They provide an independent assessment of the 
accuracy of financial information that management relies upon to make 
critical decisions.
    I understand DOD has a plan to improve processes and systems in 
order to provide reliable and accurate financial information and 
financial statement audit opinions. I plan to ensure this effort 
receives the right amount of leadership attention and resources across 
all functional areas.

    60. Senator McCain. Mr. Panetta, Secretary Gates set in motion a 
focus on eliminating inefficiencies in DOD. The reductions he levied 
across the Services may not achieve their intended results in view of 
the fact that DOD did not assess how they could do business more 
efficiently and with less cost, but instead levied budget cuts in areas 
with the least resistance or complexity. It is imperative in the 
current and foreseeable future of downward budgets that DOD makes 
reductions in their spending in areas where solid business cases 
justify the reductions. We cannot afford to have decisions made without 
understanding the impacts of reductions on the overall mission of DOD. 
What actions will you take to ensure that any decline in DOD's budget 
is achieved in a responsible manner that supports DOD's mission?
    Mr. Panetta. I will be guided by the objective of ensuring the 
Department continues to meet its responsibility to support the national 
security strategy. A strategy-driven approach is essential and the 
ongoing comprehensive review seeks to do that. I will continue the 
initiative to find additional efficiencies and eliminate lower priority 
programs. However, it must be understood that difficult choices will 
have to be made.

    61. Senator McCain. Mr. Panetta, what are the opportunities you 
envision to consolidate administrative and leadership functions of the 
various agencies or DOD enterprises? One example could be the 
consolidation of the Defense Contract Management Agency and Defense 
Contract Audit Agency under one leadership function with two operating 
arms.
    Mr. Panetta. I intend to continue Secretary Gates' effort to make 
the Department more efficient. As part of this effort, I will explore 
ways to consolidate functions in a manner that will still support 
defense requirements.

                MILITARY UNIFORM AND APPEARANCE POLICIES

    62. Senator McCain. Mr. Panetta, military leaders have expressed 
concern about the provisions of the Religious Freedom Restoration Act 
(RFRA) and whether it should apply to the uniform and personnel 
appearance standards of military members. The requirements of military 
discipline, unit cohesion, use of emergency protective equipment, and 
so on, have produced insistence on uniform standards over many years. 
Out of concern about the ability of DOD to prevail in litigation 
challenging the applicability of the RFRA to the Armed Forces, the 
administration forwarded a legislative proposal that would amend title 
10 to specify that the language of the RFRA does not apply to the 
military. What are your views about the importance of this issue and 
the need for legislation to address this problem?
    Mr. Panetta. I understand the important and delicate balance that 
must be struck between accommodating religious practices that require 
adherents to wear particular articles of faith and maintaining the 
military's uniform grooming and appearance standards. I will work with 
the leaders of the Military Services to achieve that balance.

                           HEALTH CARE COSTS

    63. Senator McCain. Mr. Panetta, in response to the advance policy 
questions you stated: ``In the long term, the promotion of healthy life 
styles and prevention among our beneficiaries is one way to help reduce 
the demand for health services.'' Do you agree that tobacco use 
adversely affects military performance and the health of DOD's 
beneficiary population?
    Mr. Panetta. Yes, I agree. The negative health effects that are 
commonly known about tobacco use, such as lung cancer and heart 
disease, certainly adversely affect those military and civilian 
beneficiaries who use these products. As such, I understand the 
Department offers programs to assist servicemembers and their families 
in quitting this habit.

    64. Senator McCain. Mr. Panetta, what is the rationale for DOD 
selling tobacco products to servicemembers, retirees, and their 
families at a discounted rate in military exchanges and commissaries?
    Mr. Panetta. While DOD policies recognize that tobacco use is 
detrimental to health and readiness, the rationale for the discount is 
similar to other discounts we provide the servicemembers: to provide 
savings on products they use.
    The National Defense Authorization Act for Fiscal Year 2009 
directed the Department to develop a smoking cessation benefit to 
encourage users to quit or reduce their tobacco use. Moving forward, we 
will build strategic partnerships with all the Military Services to 
support the smoking cessation benefit. DOD continues to actively 
encourage servicemembers to quit tobacco and many military treatment 
facilities offer treatment and classes to assist with quitting.

    65. Senator McCain. Mr. Panetta, is it time to reassess this policy 
in order to achieve your goal of healthy life styles and prevention for 
DOD beneficiaries, and if confirmed, would you pledge to do so?
    Mr. Panetta. I will ensure that the Department undertakes a 
thorough policy review to identify the best strategies to reduce the 
impact of tobacco products on our servicemembers and their families. 
The Department must support healthy lifestyles as a means of sustaining 
the health of our servicemembers and their families.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                       STATE PARTNERSHIP PROGRAM

    66. Senator Inhofe. Mr. Panetta, the National Guard provides unique 
capacity-building capabilities through its State Partnership Program 
(SPP). SPP specifically supports both combatant commanders' and U.S. 
ambassadors' strategic objectives by establishing sustainable 
relationships with critical partner nations around the world. SPP 
started back in the early 1990s as part of European Command's 
engagement plan with former Warsaw Pact nations; SPP has grown and is 
now engaged with 62 nations around the world. The National Guard Bureau 
(NGB) has been developing an updated overall strategic plan for SPP 
that looks at the world today and where we should be engaging with SPP. 
One of those areas is the continent of Africa which currently has only 
eight active partnership programs. Although the SPP has great 
potential, cumbersome statutory limits and unsteady funding streams 
have hamstrung positive efforts. I have been working with the Office of 
the Secretary of Defense (OSD), NGB, DOS, and others to deconflict the 
statutes currently severely limiting how and where guardsmen can 
operate when operating in the SPP. What are your views of our SPP?
    Mr. Panetta. The SPP is an excellent security cooperation tool that 
provides valuable training and experience to National Guard members 
through interactions with foreign counterparts. The SPP contributes 
significantly to achieving U.S. national security goals by building 
partner capacity globally, and by providing unique, niche capabilities 
in direct support to the Geographic Combatant Commanders and U.S. 
Chiefs of Mission in fulfilling their theater and country engagement 
objectives. In addition to building a partner nation's capacity, the 
SPP forges personal relationships between the individual National Guard 
members and foreign government personnel, creating an enduring bond 
that, over time, fosters trust between the organizations involved.

    67. Senator Inhofe. Mr. Panetta, if confirmed, will you continue to 
work on improving and expanding this program, to include statute and 
funding changes?
    Mr. Panetta. Yes, I will. Over the past 2 years, OSD has been 
working on a Directive-Type Memorandum (DTM) that describes the use of 
DOD appropriated funds for State Department Partnership Program 
activities. They are in the final stage of completing the DTM which 
will be the basis for a new DOD Instruction on the State Department 
Partnership Program. During the creation of the DTM, we discovered that 
there are a few limitations that need to be addressed in legislation to 
allow us to conduct State Department Partnership Program engagements 
more effectively in the area of defense related activities. We will 
work to propose legislation that will allow us to expand our ability to 
conduct these State Department Partnership Program activities to build 
and strengthen our partner capabilities and relationships.

              SECURITY ASSISTANCE AND ENGAGEMENT PROGRAMS

    68. Senator Inhofe. Mr. Panetta, I have been one of the strongest 
supporters of our security assistance and engagement programs, whether 
it is foreign military financing and sales (FMF and FMS), international 
military education (IMET), or our train-and-equip programs. These 
programs have been extremely effective programs, executed predominantly 
by DOD in close coordination with DOS. Our military-to-military (1206), 
civilian-to-civilian (1207), small-scale Special Forces (1208), 
Commander's Emergency Response Program (CERP), and Combatant 
Commander's Initiative Fund (CCIF) have proven to be vital resources in 
aiding developing countries in the professionalization of their 
militaries, fighting terrorism, and providing resources for emergency 
situations. A key to these programs has been that the engagements are 
worked by both DOS and DOD, chiefs of mission, and combatant commanders 
working together to increase the capabilities of our partner nations to 
provide for their own security, increasing stability in their region 
and around the globe. Are you familiar with these programs? If yes, 
what is your opinion of them?
    Mr. Panetta. Yes, I am familiar with these programs. Building our 
foreign partners' capacity to conduct counterterrorism operations and 
creating an environment inhospitable to terrorists and insurgents are 
among the major elements of Geographic Combatant Commanders' strategies 
to counter terrorism and instability around the world. Enabling our 
foreign partners to provide for their own security and contribute to 
multilateral security efforts is an investment that pays immediate and 
long-term dividends by reducing the need for costlier U.S. 
interventions in response to turmoil in regions critical to U.S. 
interests. As you note, collaboration between the Departments of State 
and Defense in formulating and implementing these programs is a key 
factor in their success, and promotes effective use of taxpayers' 
dollars by combining the expertise and abilities of personnel from 
across the Executive Branch. The security challenges facing partner 
countries are linked to multiple parts of the security sector, 
including the military, police, and judiciary. I look forward to 
working with Congress and my counterparts in the administration to 
fulfill this shared responsibility to build partner nation security 
capability and capacity.

    69. Senator Inhofe. Mr. Panetta, if confirmed, would you continue 
to support investment by DOD in these programs?
    Mr. Panetta. Yes, I believe that continuing to engage with foreign 
partners through counterterrorism and capacity-building efforts, and 
maintaining strong international security relationships, will continue 
to be an imperative for DOD. Enabling other countries to provide for 
their own security will be an enduring test of U.S. global leadership, 
and these efforts will be critical to protecting our national security 
interests. In a world where the most likely threats will emanate from 
failed and fractured states, building the security capacity of partners 
is a vital warfighting instrument. It reduces the need for direct U.S. 
military intervention, with all of its attendant political, financial, 
and human costs. It also provides better security as capable partners 
are often more effective addressing threats in their neighborhoods than 
outside actors. Improving the way the U.S. Government implements these 
programs requires continued investment across our national security 
infrastructure, not just DOD. I look forward to continuing DOD's 
partnership with Congress in developing innovative solutions that 
enable the United States to respond with agility to emerging threats 
and opportunities.

    70. Senator Inhofe. Mr. Panetta, DOD and DOS are working on a 
proposal to pool funding for security assistance into three long-term 
funds totaling as much as $2 billion. This proposal would provide long-
term funding vice the year-to-year funding that has had a negative 
impact on our current engagement programs. However, there are issues 
with how the funding is pooled by the two departments, who has 
oversight in Congress, and how will the funds get executed in a timely 
and consistent manner. If confirmed, can you provide an update on the 
status of this proposal and how you will resolve funding, oversight, 
and execution issues?
    Mr. Panetta. I would be happy to update the committee regarding 
this proposal and the administration's efforts to resolve the issues 
you mention.
    The proposal to create a Global Security Contingency Fund (GSCF) 
was included in the President's fiscal year 2012 budget request. The 
proposal represents more than a year's work within the administration 
to develop a new business model for addressing security sector 
assistance requirements within the budget cycle. It also reflects an 
appreciation for the degree to which defense, diplomacy, and 
development must be better integrated so that U.S. assistance programs 
are more effective and targeted in an era of transnational challenges 
and rapidly changing dynamics.
    I look forward to working with Congress to address any outstanding 
concerns regarding the GSCF.

                              AFGHANISTAN

    71. Senator Inhofe. Mr. Panetta, various press reports state that 
administration officials are considering withdrawing from Afghanistan 
more rapidly than currently planned. Secretary Gates said this weekend 
in Afghanistan that pulling out of Afghanistan too fast would threaten 
the gains made in the 18 months since the surge of 30,000 troops. 
Secretary Gates told marines in Afghanistan on Sunday, ``If you guys 
and everybody keeps the pressure on, we can hang onto everything we've 
gained over the last year to 18 months, we can expand the security 
bubble beyond that . . . We have succeeded in stopping the Taliban's 
momentum . . . but we've just kind of turned that corner and I think we 
need to keep the pressure on.'' In Kabul, he appealed for patience and 
said that only modest U.S. troop reductions would make sense this 
summer in a still unstable Afghanistan. U.S. and coalition commanders I 
met on the ground in Afghanistan have repeatedly told me that it's too 
early to make major changes on the ground, and some believe it will 
take until the end of this fighting season to get a true assessment of 
the conditions on the ground in Afghanistan. I trust our military 
leadership to make the right decision based on their assessment of the 
conditions on the ground. Some argue that, with Osama bin Laden dead, 
our mission in Afghanistan is complete. The killing of Osama bin Laden 
was a great victory, but our mission in Afghanistan is to ensure that 
it can never again become a staging area for terrorist attacks against 
the American Homeland.
    What conditions must be met in July 2011 to determine the extent of 
a U.S. troop drawdown?
    Mr. Panetta. The conditions for determining the extent of the 
drawdown include progress on several interrelated aspects of our 
counterinsurgency strategy, such as reversing the Taliban's momentum, 
denying the Taliban access to and control of key population centers and 
lines of communication, disrupting the Taliban outside secured areas 
and denying al Qaeda safe haven, and developing the ANSFs and their 
capability to manage a degraded insurgency. We have made progress in 
each of these areas sufficient to enable the President to make his 
decision about the drawdown and its extent.

    72. Senator Inhofe. Mr. Panetta, which conditions have been met?
    Mr. Panetta. There has been progress across the range of factors 
and in some cases substantial progress. For example, the momentum has 
shifted to the Coalition & ANSF and together we have degraded the 
Taliban's capability and achieved significant security gains, 
especially in the Taliban's heartland in the south. These security 
gains are enabling key political initiatives to make progress. We have 
begun a transition process that will ultimately put Afghans in the lead 
for security nationwide by 2014. The growth in the quantity and quality 
of the ANSF--which have fielded more than 100,000 additional forces 
over the past 18 months--is one of the critical conditions that is 
enabling the drawdown of U.S. surge forces. We are beginning to see 
reintegration and reconciliation processes gain traction, and we are 
discussing a strategic partnership with the Afghans to signal our 
enduring commitment to regional peace and stability.

    73. Senator Inhofe. Mr. Panetta, what conditions would cause you to 
ask President Obama to delay the withdrawal of troops?
    Mr. Panetta. At this time, the progress that has been achieved has 
established conditions necessary for the President to make his drawdown 
decision on schedule.

    74. Senator Inhofe. Mr. Panetta, are there future planned decision 
points after July 2011 that will be used to determine further 
reductions in U.S. troop commitments?
    Mr. Panetta. Beyond the President's immediate drawdown decision, 
commanders will need to make recommendations for decisions regarding 
the overall pace and shape of the transition to Afghan security. Those 
decisions will depend upon continued progress and conditions on the 
ground.

    75. Senator Inhofe. Mr. Panetta, what conditions must be met in 
2014 to transition to Afghan control?
    Mr. Panetta. Transition will begin this July in seven districts and 
provinces and then spread throughout the country by the end of 2014. 
The exact conditions for entering and completing the transition process 
in a given area will vary across the country, reflecting the 
differences across Afghanistan. The ability of the ANSFs to carry out 
lead security responsibilities effectively is a central consideration 
as are the abilities of Afghan institutions of government, especially 
at the provincial and district levels, to meet the basic needs of 
citizens for dispute resolution and economic development.

    76. Senator Inhofe. Mr. Panetta, what are the minimum conditions 
that must be achieved in Afghanistan, in order for Afghans to be able 
to sustain stability with relatively limited international assistance?
    Mr. Panetta. One of the most critical preconditions for Afghans to 
maintain a stable, secure Afghanistan will be capable, professional 
ANSF. Although support for the ANSF will continue to require 
international assistance for many years, security forces continue to 
make significant progress, with increases in quantity, quality, and 
operational capacity. Over time, as U.S., Coalition, and Afghan forces 
continue to degrade the Taliban insurgency, the Afghan Government may 
be able to reduce the size, and therefore cost, of the ANSF to address 
a diminished threat.
    Another essential condition to build sustainability will be 
increased Afghan fiscal self-sufficiency. External support will likely 
continue to be critical in the near and medium-term to help mitigate 
shortfalls in infrastructure, human capacity, and security concerns. 
However, over time, as economic growth continues and Afghanistan tax 
revenues increase, levels of required assistance should decline.

    77. Senator Inhofe. Mr. Panetta, what impact would a failure in 
Afghanistan have on U.S. national security in the long term?
    Mr. Panetta. Failure in Afghanistan would mean a return of the 
conditions that resulted in Afghanistan becoming the safe haven from 
which al Qaeda plotted the September 11 attacks against the United 
States. It would mean a perilous increase in the security threats the 
United States faces from violent extremists, as well as in the threats 
these groups pose to other countries in the region. Moreover, failure 
in Afghanistan would undermine the credibility of U.S. security 
commitments elsewhere around the world and jeopardize the national 
interests they are meant to protect.

    78. Senator Inhofe. Mr. Panetta, during my visit over New Years, 
Afghan and coalition personnel unanimously told me that setting the 
July 2011 timeline to begin withdrawal of U.S. forces from Afghanistan 
had a devastating effect on operations--it sent the wrong signal to the 
Afghan people, our coalition partners, and the Taliban. Do you believe 
the announcement of a July 2011 withdrawal date negatively impacted 
operations?
    Mr. Panetta. No. Establishing the July 2011 timeline to begin a 
conditions-based drawdown of U.S. surge forces struck an appropriate 
and responsible balance between giving our commanders the resources 
they need to carry out the strategy and communicating to the Afghans 
that they must step forward and take on the responsibility for their 
own security. The timeline additionally undercuts claims that we are 
occupiers and assures the American people that the mission is not open-
ended. The date also provided ample time for our forces to turn back 
the Taliban's momentum while building up capable ANSFs that are 
increasingly taking on responsibility to hold and expand on the 
security gains achieved thus far.

                           MILITARY SPENDING

    79. Senator Inhofe. Mr. Panetta, the Office of Management and 
Budget has asked DOD for $400 billion in cuts through 2023 . . . a 6\1/
2\ percent annual decrease from current spending rates. These cuts 
would come solely out of base budget. On May 25, 2011, Secretary Gates 
said at the American Enterprise Institute, ``The Reagan build-up of the 
1980s fielded a new generation of weapons platforms that continue to be 
the mainstay of the force today . . . In contrast, the 1990s 
represented basically a procurement holiday . . . What remains are 
much-needed capabilities . . . that our Nation's civilian and military 
leadership deem absolutely critical. For example: we must build a new 
tanker . . . field a next generation strike [fighter] . . . 
recapitalize the ground forces . . . replace our ballistic missile 
submarines.'' How will you balance the pressure to cut defense spending 
with the military's readiness and acquisition priorities?
    Mr. Panetta. I will ensure that future spending decisions are based 
on the Department's priorities, national security strategy, and a clear 
understanding of associated risks. It is an important process where we 
must identify options for the President and Congress, to ensure that 
the Nation consciously acknowledges and accepts additional risk in 
exchange for reduced investment in its military.

    80. Senator Inhofe. Mr. Panetta, what do you see as DOD's top 
readiness and acquisition priorities?
    Mr. Panetta. My top priority is ensuring that the warfighters have 
what they need to accomplish their missions and to provide for the 
national security of the United States.

                        DEFENSE INDUSTRIAL BASE

    81. Senator Inhofe. Mr. Panetta, throughout the post-World War II 
era, the United States has maintained its military leadership in large 
part as a result of its industrial leadership--particularly in 
aerospace and other defense industries. That leadership is due in large 
part to the employees of that industry--the engineers, scientists, and 
machinists. Maintaining this leadership in the future will require that 
DOD identify and communicate what it needs to counter future military 
threats. If confirmed, what will you do to map out the industrial 
policy and needs of DOD?
    Mr. Panetta. As Secretary of Defense, I will ensure DOD policies, 
procedures, and actions: (1) stimulate and support vigorous competition 
and innovation in the industrial base supporting defense; and (2) 
establish and sustain cost-effective industrial and technological 
capabilities that assure military readiness and superiority.
    I will do so by: (1) monitoring industry readiness, 
competitiveness, ability to innovate, and financial stability as the 
Department moves to capabilities-based acquisitions in an era of 
increasingly sophisticated systems; (2) leveraging DOD research and 
development, acquisition, and logistics decisions to promote 
innovation, competition, military readiness, and national security; (3) 
leveraging statutory processes (for example, the Defense Priorities and 
Allocations System; Hart-Scott-Rodino antitrust evaluations; Exon-
Florio Committee on Foreign Investment in the United States 
evaluations) and promoting innovation, competition, military readiness, 
and national security; (4) leading efforts for the Department to engage 
with industry to ensure openness and transparency; and (5) continuing 
our long history of supporting science, technology, engineering, and 
mathematics education initiatives in a collaborative process at local, 
regional, and national levels.

                          NUCLEAR FORCE LEVELS

    82. Senator Inhofe. Mr. Panetta, during the New START hearings, 
General Chilton was asked by Senator Feingold whether the New START 
treaty allowed the United States to ``maintain a nuclear arsenal that 
is . . . more than is needed to guarantee an adequate deterrent.'' 
General Chilton replied, ``I think the arsenal that we have is exactly 
what is needed today to provide the deterrent. . . . [I]t is sized to 
be able to allow us to hedge against both technical failures in the 
current deployed arsenal and any . . . changes in the geopolitical 
environment that might cause us to need more weapons deployed.'' Do you 
agree with General Chilton?
    Mr. Panetta. Over the last 50 years, U.S. nuclear strategy and 
force structure have continually evolved with the global-strategic 
environment. DOD will continue to assess the proper force size and 
capabilities required for an effective nuclear deterrent. The DOD is 
committed to sustaining and modernizing a safe, secure, and effective 
nuclear deterrent in an efficient and cost effective manner that 
maintains strategic deterrence and stability, strengthens regional 
deterrence, and assures our allies and partners.

                         NUCLEAR MODERNIZATION

    83. Senator Inhofe. Mr. Panetta, in the 2010 Nuclear Posture Review 
(NPR) and during the discussion on the New START treaty, the 
administration made substantial commitments to the sustainment and 
modernization of the U.S. nuclear deterrent. Secretary Gates was a 
strong supporter of the nuclear triad and a robust modernization 
program: ``In many ways, the primary threat to the effectiveness and 
credibility of the American deterrent is one that we control ourselves, 
and that is failing to invest adequately in our Nation's nuclear weapon 
infrastructure, a point I have made a number of times in recent 
years.'' Will you commit to the nuclear modernization plan (referred to 
as the 1251 plan) that was the basis for Senate support for the New 
START treaty?
    Mr. Panetta. I am committed to the sustainment of a safe, secure, 
and effective nuclear deterrent, and I support the administration's 
plan for modernization and sustainment as laid out in the Report to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act for Fiscal Year 2010.

    84. Senator Inhofe. Mr. Panetta, will you support decisions for a 
follow-on nuclear bomber, air-launched cruise missile, intercontinental 
ballistic missiles (ICBM), and submarine launched ballistic missiles 
(SLBM)?
    Mr. Panetta. I will continue the DOD commitment to sustaining and 
modernizing a safe, secure, and effective nuclear deterrent that 
supports strategic deterrence and stability, strengthens regional 
deterrence, and assures our allies and partners in an efficient and 
cost-effective manner.

    85. Senator Inhofe. Mr. Panetta, will you support modernization of 
our nuclear weapons laboratories and characterize such funding as 
``national security activities'' as opposed to regular Department of 
Energy funding?
    Mr. Panetta. I am committed to the sustainment of a safe, secure, 
and effective nuclear deterrent, and I support the administration's 
plan for modernization and sustainment as laid out in the Report to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act for Fiscal Year 2010. As described in the 2010 NPR and in the 
Report pursuant to section 1251, modernization of the nuclear weapons 
infrastructure is a key element of the administration's nuclear policy. 
This is exemplified by the Chemistry and Metallurgy Research 
Replacement-Nuclear Facility (CMRR-NF) and the Uranium Processing 
Facility (UPF), which, when fully operational, will support production 
of critical components needed to ensure a safe, secure, and effective 
nuclear stockpile.
    Funding for these activities is currently part of the Weapons 
Activities Account in the National Nuclear Security Administration 
budget; accordingly, it is already considered national security 
funding.

                         U.S. NUCLEAR DOCTRINE

    86. Senator Inhofe. Mr. Panetta, the administration is reviewing 
nuclear deterrence requirements and nuclear targeting guidance with a 
goal of further nuclear reductions. This could precipitate a move away 
from longstanding nuclear doctrine characterized by a second-to-none 
approach, with flexible nuclear forces capable of providing the 
President a wide array of targeting options, to a minimum deterrence 
approach with too few forces that may lack credibility. The 
administration has called for a study of current nuclear deterrence 
requirements and nuclear targeting guidance. As the study progresses, 
will you make yourself and your staff available for regular briefings 
to describe the study?
    Mr. Panetta. Over the last 50 years, U.S. nuclear doctrine and 
targeting strategies have continually evolved with the global strategic 
environment. Every President since the beginning of the nuclear age has 
asked DOD to conduct such analyses and has used that information to 
inform updated planning guidance provided to DOD. We would be remiss if 
we did not re-examine our nuclear strategy in today's dynamic security 
environment. It is my intention to keep Congress fully informed of U.S. 
nuclear deterrence strategy.

    87. Senator Inhofe. Mr. Panetta, will you ensure that a thorough 
assessment is conducted, including analysis of the implications for 
reductions on stability and preserving a second-to-none capability?
    Mr. Panetta. Any future nuclear reductions must strengthen 
deterrence of potential regional adversaries, maintain strategic 
deterrence and stability vis-a-vis Russia and China, and maintain the 
reliability and effectiveness of our security assurances to our allies 
and partners. In the NPR Report follow-on analysis, we will identify 
the force levels required to support those objectives and any potential 
risks associated with each.

    88. Senator Inhofe. Mr. Panetta, will you commit to a careful 
consideration of the advice provided by our military leaders?
    Mr. Panetta. It is my intention to work with the military 
leadership to maintain a safe, secure, and effective nuclear deterrent.

    89. Senator Inhofe. Mr. Panetta, do you agree it is important to 
determine deterrence requirements and the types of forces necessary to 
achieve those requirements before engaging with the Russians in another 
round of nuclear reductions?
    Mr. Panetta. As noted in the 2010 NPR Report, any future nuclear 
reductions must strengthen deterrence of potential regional 
adversaries, maintain strategic deterrence and stability vis-a-vis 
Russia and China, and maintain the credibility and effectiveness of our 
security assurances to our allies and partners. In the NPR Report 
follow-on analysis, DOD will identify the force levels needed to 
support those objectives and any potential risks associated with each. 
The analysis will help shape our negotiating position as further arms 
reduction agreements are considered.

    90. Senator Inhofe. Mr. Panetta, will you pledge to provide 
detailed briefings to Congress on any future analysis in support of a 
future arms control negotiation?
    Mr. Panetta. It is my intention to keep Congress fully informed 
about developments in U.S. nuclear strategy and arms control policy.

    91. Senator Inhofe. Mr. Panetta, in 1992, you voted as a Member of 
the House of Representatives to eliminate all U.S. non-strategic 
nuclear warheads. The policy of this administration is to maintain non-
strategic weapons in Europe until such time that NATO consensus 
supports their removal. Will you confirm your support for the 
administration position?
    Mr. Panetta. As noted in the 2010 NPR Report, reassuring U.S. 
allies and partners is one of the key objectives of U.S. nuclear 
deterrence policy and force posture. Any change in our nuclear posture 
will be considered in the context of our continuing need to assure our 
allies and partners of our commitment to their security. Any decision 
to change the status of U.S. nuclear forces committed to the defense of 
NATO would be after thorough review and consultations with NATO. I 
fully support the administration's policy on this issue.

    92. Senator Inhofe. Mr. Panetta, will you work to ensure that a 
nuclear-capable F-35 is developed to allow the continuation of that 
commitment?
    Mr. Panetta. Yes, I am committed to the development of a dual-
capable F-35 fighter. DOD will carry out the direction stated in the 
2010 NPR Report, that ``the Air Force will retain a dual-capable 
fighter (the capability to deliver both conventional and nuclear 
weapons) as it replaces F-16s with the F-35 Joint Strike Fighter.''
    As set out in the Report to Congress pursuant to section 1251 of 
the National Defense Authorization Act for Fiscal Year 2010, the Air 
Force will continue to conduct the dual-capable aircraft mission with 
existing fighter aircraft until the F-35 is fielded.

                        SHIFT IN MISSILE DEFENSE

    93. Senator Inhofe. Mr. Panetta, while directing that we sustain 
and enhance our ability to defend the Homeland against limited numbers 
of long-range ballistic missiles, the administration has made defending 
against regional threats ``a top priority of our missile defense 
plans,'' according to Secretary Gates. As a result, funding for the GMD 
system has steadily declined, while the two test failures of the GMD 
system in 2010 suggest the Missile Defense Agency is not doing nearly 
enough to sustain and enhance the system. GMD reductions include:

        <bullet> Cutback deployment from 44 to 30 GBIs and cancellation 
        of 10 GBIs in Poland;
        <bullet> $500 million reduction to the GMD program in the 
        fiscal year 2010 budget request;
        <bullet> Fiscal years 2011-2015 funding for GMD declines by 
        $600 million when compared to President's budget last year; and
        <bullet> Obama GMD budget for fiscal years 2010-2013 is $4 
        billion less than Bush fiscal years 2010-2013 planned budget.

    Will you pledge to end this neglect of the GMD system and provide 
the attention and funding necessary to return the GMD system to full 
operational reliability and ensure the system is improved and 
modernized over time?
    Mr. Panetta. I will support the continued sustainment and 
improvement of the GMD system as a key priority.
    I share Secretary Gates' view that the ``protection of the United 
States from the threat of ballistic missile attack is a critical 
national security priority.''
    The current ballistic missile defense posture for the United States 
protects against ICBMs that might be deployed by states like North 
Korea or Iran. Improvements to the existing sensors and software, in 
addition to the procurement of additional ground-based interceptors 
(GBIs) and radars, and the development of the SM-3 IIB interceptor, 
will continue this protection against future ICBM threats from states 
like North Korea and Iran.

                MISSILE DEFENSE COOPERATION WITH RUSSIA

    94. Senator Inhofe. Mr. Panetta, will you commit to share with 
Congress, no later than 30 days after your confirmation:

        <bullet> Missile defense and threat information provided to 
        Russia, including in the NATO context;
        <bullet> The draft Defense Technology Cooperation Agreement, 
        including the Bush administration's draft;
        <bullet> The Missile Defense Cooperation Agreement that had 
        been discussed with the Russians; and
        <bullet> Analysis of the location of the AN/TPY-2 radar being 
        considered for deployment in Turkey, and any other locations 
        being considered by this and past administrations.

    Mr. Panetta. DOD and DOS have briefed Congress on cooperation 
efforts with Russia and efforts to implement the European Phased 
Adaptive Approach (EPAA), including the deployment of the AN/TPY-2 
radar, and will continue to do so.
    Discussions on the draft Defense Technology Cooperation Agreement 
(DTCA) were initiated in 2004 at President Bush's direction to 
establish a legal framework for purposes of conducting with Russia a 
broad range of defense-related cooperative research and development 
activities, which could include missile defense. The Obama 
administration has continued these efforts to negotiate and conclude a 
DTCA with Russia. A draft Ballistic Missile Defense Cooperation 
Agreement (BMDCA), which Russia declined to negotiate, would have been 
a more limited form of the DTCA. These agreements were briefed in 
detail to Senate staff members in December 2010 during discussions as 
part of the Senate's consideration of the New START treaty advice and 
consent to ratification. Finally, the United States only shares 
sensitive information with foreign countries in accordance with Foreign 
Disclosure laws and regulations.

                         NUCLEAR MODERNIZATION

    95. Senator Inhofe. Mr. Panetta, in the 2010 NPR and during the 
discussion on the New START treaty, the administration made substantial 
commitments to the sustainment and modernization of the U.S. nuclear 
deterrent. Enhanced safety, security, and reliability of nuclear 
weapons stockpile, modernization of the nuclear weapons complex, and 
maintenance of the nuclear delivery systems are key to enabling 
maintaining our nuclear deterrence. The Perry-Schlesinger Commission 
stated it was alarmed by the disrepair and neglect of the nuclear 
weapons stockpile and complex. Secretary Gates warned in October 2008, 
there's ``no way we can maintain a credible deterrent and reduce the 
number of weapons in our stockpile without either resorting to testing 
our stockpile or pursuing a modernization program.'' We are the only 
major nuclear power not modernizing its' weapons. Our weapons are an 
average of 26 years old and most are 15 or more years beyond design 
life. Secretary Gates was a strong supporter of the nuclear triad and a 
robust modernization program. Secretary Gates said, ``In many ways, the 
primary threat to the effectiveness and credibility of the American 
deterrent is one that we control ourselves, and that is failing to 
invest adequately in our Nation's nuclear weapon infrastructure, a 
point I have made a number of times in recent years.'' Do you support 
the triad of bombers with gravity bombs and nuclear cruise missiles, 
ballistic missile submarines, and ICBMs?
    Mr. Panetta. I will continue the DOD commitment to sustaining and 
modernizing a safe, secure, and effective nuclear deterrent that 
supports strategic stability in an efficient and cost-effective manner, 
deters regional threats, and assures allies and partners.

    96. Senator Inhofe. Mr. Panetta, is it important to maintain a 
nuclear triad?
    Mr. Panetta. As stated in the 2010 NPR Report, each leg of the 
triad has unique advantages. I will continue the DOD commitment to 
sustaining and modernizing a safe, secure, and effective nuclear 
deterrent that supports strategic stability in an efficient and cost-
effective manner, strengthens regional deterrence, and assures our 
allies and partners.

    97. Senator Inhofe. Mr. Panetta, are you committed to the nuclear 
modernization plan, referred to as the 1251 plan, that was the basis 
for Senate support for the New START treaty?
    Mr. Panetta. I am committed to the sustainment of a safe, secure, 
and effective nuclear deterrent, and I support the administration's 
plan for modernization and sustainment as laid out in the Report to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act for Fiscal Year 2010.

    98. Senator Inhofe. Mr. Panetta, do you support modernization of 
our nuclear weapons labs?
    Mr. Panetta. I am committed to the sustainment of a safe, secure, 
and effective nuclear deterrent, and I support the administration's 
plan for modernization and sustainment as laid out in the Report to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act for Fiscal Year 2010. As described in the 2010 NPR Report and in 
the Report pursuant to section 1251, modernization of the nuclear 
weapons infrastructure, including the nuclear weapons laboratories, is 
a key element of the administration's nuclear policy.

    99. Senator Inhofe. Mr. Panetta, would you characterize this 
funding as national security activities?
    Mr. Panetta. Funding for activities needed to ensure a safe, 
secure, and effective nuclear stockpile is currently part of the 
Weapons Activities Account in the National Nuclear Security 
Administration budget; accordingly, it is considered national security 
funding.

                NATIONAL SECURITY AND THE GLOBAL THREAT

    100. Senator Inhofe. Mr. Panetta, on January 6, 2011, Secretary 
Gates told Jim Lehrer that ``I think [the thing] people need to 
remember is that providing for the common defense is an unambiguous 
Federal responsibility. . . . I would argue that defense is not the 
problem when it comes to the deficit. If you look at defense as a 
percentage of Federal expenditures or as a percentage of gross national 
product, we're at a lower level, particularly for wartime, than we have 
been during any previous war, and as a percentage of the overall 
Federal budget, about where we have been for a number of years.'' DOD 
is executing several efficiency initiatives to make the most of the 
limited budget it has been given but even those efficiencies will not 
allow the military to fully sustain operations, maintain the force, and 
modernize our equipment. DOD needs to fully fund current operations . . 
. not just in Iraq and Afghanistan but at home and around the globe . . 
. this includes training and exercises. It needs to take care of its 
people . . . an exponentially growing cost. And it needs to modernize 
its aging fleet of ships, vehicles, and aircraft or spend increasing 
amounts of DOD dollars to sustain old equipment. The $400 million 
across-the-board cut favored by the administration next year does not 
take into account the risks to our national security or our ability to 
execute the national security strategy. During questioning about 
postponing weapon systems acquisition and maintenance at a hearing in 
front of the Senate Readiness and Management Support Subcommittee of 
the Senate Armed Services Committee, Vice Admiral Burke said: ``you can 
pay for it now or pay more for it later.'' If confirmed, how will you 
ensure our military is postured to counter the full spectrum of 
national security threats?
    Mr. Panetta. This spring, President Obama announced a framework for 
deficit reduction. As part of that effort, the President set a goal of 
holding the growth in base national security spending slightly below 
inflation for the next 12 years, which would save about $400 billion. 
Although defense spending is not the source of the Nation's current 
fiscal condition, it will have to be part of the national solution.
    In April, Secretary Gates launched a comprehensive review to ensure 
that future spending decisions are focused on priorities, strategy, and 
risks, and are not simply a math and accounting exercise. He said, and 
I agree, that the choices we make in terms of reductions in defense and 
security spending must be made with a clear understanding of the 
potential risks and consequences of those choices.
    The overarching goal of the comprehensive review is to preserve a 
U.S. military capable of meeting crucial national security priorities 
across the range of potential threats. This process seeks to inform and 
support decisions by the President and Congress and to ensure that the 
Nation consciously acknowledges and accepts the implications, including 
additional risk, of reduced investment in its military in an uncertain 
and still dangerous security environment. The defense of the United 
States and the American people is a sacred trust. I take the Nation's 
defense very seriously, as I know all Members of Congress do. I look 
forward to working with Congress to maintain a highly capable military 
that will protect and defend the United States and preserve security 
abroad, now and in the future.

    101. Senator Inhofe. Mr. Panetta, are we on a path to continue 
acquiring the best systems and enough of those systems to meet the 
current requirements or does there need to be a change in our National 
Security Strategy modifying those requirements?
    Mr. Panetta. As Secretary Gates has stated, we must ensure that 
future defense spending decisions are strategically informed and 
focused on priorities and risks. With regard to capabilities, the 
Department over the past 2 years has cancelled acquisitions or 
curtailed modernization programs that were badly over budget, behind 
schedule, dependent on unproven technology, supplied a niche 
requirement that could otherwise be met, or were impractical in a 
rapidly changing security environment.
    Particularly, amid declining resources, it is critically important 
that we continue the Department's commitment to developing technology 
and fielding weapons systems that are affordable, versatile, and 
relevant to the range of threats in the decades to come. This approach 
is consistent with the 2010 National Security Strategy, which notes 
that ``we will scrutinize our programs and terminate or restructure 
those that are outdated, duplicative, ineffective, or wasteful. The 
result will be more relevant, capable, and effective programs and 
systems that our military wants and needs.''

    102. Senator Inhofe. Mr. Panetta, overall funding for procurement 
is down $6 billion in fiscal year 2012 (base budget and Overseas 
Contingency Operations) compared to the fiscal year 2011 Continuing 
Resolution. Research and development is down $5 billion and military 
construction is down $4 billion. What impact does this have on our 
future forces and the cost to recapitalize our infrastructure, 
vehicles, ships, aircraft, and other equipment 5 to 10 years down the 
road?
    Mr. Panetta. The impact is not precisely known at this time. If 
confirmed, I intend to ensure that limited Defense resources are used 
on those programs that will provide the warfighter with equipment and 
support that is needed to accomplish the national security mission of 
the United States. The Department will have to continue to identify 
ways to become more efficient so that scarce Defense resources are not 
wasted and the highest priorities are funded.

    103. Senator Inhofe. Mr. Panetta, what impact will delaying 
modernization have on the cost of future weapons systems?
    Mr. Panetta. Any cost impacts associated with the pace of 
modernization would be highly dependent on the specific choices and 
implementation. This is an area I will be looking at closely.

                            FORCE REDUCTIONS

    104. Senator Inhofe. Mr. Panetta, in January 2007, the end strength 
of the Army grew by 65,000 because we did not have enough ground forces 
to sustain operations. Two years later Congress approved a temporary 
increase in Army end strength of another 22,000. At the same time, we 
also grew the size of the Marine Corps by 27,000. DOD is projecting 
cutting the Army by 27,000 and Marine Corps by 20,000 between 2015 and 
2016. Secretary Gates said this week that `` . . . the worst thing in 
the world would be what was done in the 1970s and 1990s . . . give 
everybody in the military a same percentage cut across the board. 
That's the way you hollow out the military. That's the way you don't 
have enough ammunition to use at firing ranges, you don't have enough 
money for exercising or training, you don't have enough money for tank 
miles or steaming days or flight hours . . . if we have to reduce the 
size of the military in some way, I want the level of excellence when 
we're done to be at the same standard it is today.'' I felt we cut our 
force too deep during the Clinton administration which resulted in our 
need to increase the force in 2007. In your answers to the advance 
policy questions, you state that ``2 years as Central Intelligence 
Agency (CIA) Director has made me realize that intelligence is often 
ambiguous.'' I agree. Our crystal ball has been cloudy at best when it 
comes to anticipating impacts to our national and global security. Do 
you support cuts in Army and Marine Corps end strength?
    Mr. Panetta. Any reduction will need to be monitored and will be 
affected by security considerations around the globe and the readiness 
of our military.

    105. Senator Inhofe. Mr. Panetta, do these cuts assume zero forces 
in Iraq in 2012 and zero forces in Afghanistan in 2014?
    Mr. Panetta. Any reductions in the Army and the Marines Corps will 
be based on security considerations in Iraq and Afghanistan as well as 
around the globe.

    106. Senator Inhofe. Mr. Panetta, are these personnel cuts being 
driven by budget constraints or based on national security 
requirements?
    Mr. Panetta. DOD has increased U.S. Army and U.S. Marine Corps end 
strengths in order to meet the demands generated by simultaneous 
operations in Iraq and Afghanistan. The planned cuts in their end 
strengths are deferred until after fiscal year 2015 to reflect our 
expectation that ground force requirements for operations in Iraq and 
Afghanistan will be markedly lower after fiscal year 2015. Although 
realistic force planning must be mindful of resource constraints, it is 
driven by strategic considerations that assess the nature of challenges 
likely to be confronted in the future, the types of missions the U.S. 
Armed Forces will be required to perform, and the capabilities and 
capacities needed to execute those missions successfully.

                             GUANTANAMO BAY

    107. Senator Inhofe. Mr. Panetta, I returned from my most recent 
visit to Guantanamo Bay (GTMO) on May 20, 2011. It was important for me 
to return to get an update on the operations and see firsthand the 
current conditions of the detention facilities and the detainees. I 
took six members who had never been to GTMO before. Each of them, 
regardless of party, came away with a greater appreciation for the work 
that is being done there. GTMO is the single greatest repository of 
human intelligence in the war on terror. This intelligence has 
prevented terrorist attacks, saved lives, and helped lead us to Osama 
bin Laden. You said that ``enhanced interrogation techniques'' yielded 
some of the intelligence information that ultimately led to Osama bin 
Laden, but ``whether we would have gotten the same information through 
other approaches I think is always going to be an open question.'' Do 
detainees at GTMO pose a threat to U.S. national security?
    Mr. Panetta. As I have stated before, I fully support the 
President's decision to establish Army Field Manual 2-22.3 as the 
single standard applicable to all interrogations by U.S. Government 
personnel. This decision was based on the results of a careful review 
conducted by the President's interagency Interrogation and Transfer 
Policies Task Force which was charged with evaluating the sufficiency 
of the interrogation practices and techniques in the Army field manual. 
The Task Force found that additional techniques were not necessary. I 
believe we should do everything possible within the law to gather 
information, and I agree with those who state that information can be 
obtained without resorting to measures such as waterboarding. I do not 
support a set of classified interrogation methods that are not open to 
public scrutiny.

    108. Senator Inhofe. Mr. Panetta, do you believe the United States 
will continue to capture terrorists around the world?
    Mr. Panetta. Yes. When it comes to protecting the American people 
from al Qaeda and its associated forces, intelligence is critical to 
identifying and disrupting their plots, as well as to dismantling their 
networks. Among our greatest sources of information about al Qaeda, its 
plans, and its intentions have been the members of its network who have 
been taken into custody by the United States and our partners overseas. 
Wherever possible, we must maintain a preference to capture terrorists 
and take advantage of the opportunity to gather information through 
interrogation that is vital to the safety and security of the American 
people.

    109. Senator Inhofe. Mr. Panetta, where will you put existing 
detainees and future detainees?
    Mr. Panetta. The United States will continue to hold detainees in 
accordance with the authority provided by the 2001 Authorization for 
Use of Military Force, as informed by the law of war. DOD's ability to 
detain the enemy and interrogate them for intelligence in prosecuting 
the war against al Qaeda, the Taliban, and their associated forces is 
essential to U.S. national security. The United States has been 
detaining individuals in this war for nearly a decade and has learned 
that there is no one-size-fits-all approach to the complex issue of law 
of war detention in a 21st century conflict with a transnational 
terrorist group.
    DOD currently holds detainees in Iraq, Afghanistan, and Guantanamo 
Bay. We are transitioning our detention operations in both Iraq and 
Afghanistan, with the intent of moving from a law of war detention 
framework to a peacetime domestic legal framework where each respective 
nation takes responsibility for its own citizens.
    I fully support the President's commitment to close the detention 
facility at Guantanamo Bay because it is in our national security 
interest to do so. I do acknowledge, however, that the United States 
needs a place to hold individuals whom we capture abroad. This is a 
very serious issue for our country, and it is one I believe 
policymakers need to address expeditiously. The decision to capture an 
individual outside an active theater of combat operations is a complex 
issue, involving a range of factors unique to the individual and the 
place and circumstances of capture. With respect to future detainees, 
disposition recommendations would be informed by the unique 
circumstances of each capture, with decisions made on a case-by-case 
basis among policymakers.

    110. Senator Inhofe. Mr. Panetta, if held at locations in other 
countries such as Afghanistan or Yemen, isn't there a greater risk of 
escape, attack on the prison, or release of these terrorists?
    Mr. Panetta. The United States does not ask other nations to detain 
on its behalf. When we transfer detainees to another nation, that 
individual becomes subject to the laws of the receiving nation. In 
certain cases, detainees have been held and/or tried by the receiving 
nation for crimes they have committed. There have been instances where 
former detainees, or dangerous individuals held by other nations, have 
escaped or have been released. We take these instances very seriously, 
and certainly factor them when assessing the transfer of a detainee to 
the control of another government.
    As we strengthen our own detention policies and procedures, we must 
continue to work with our partners around the world to build their 
capacity to confront this common challenge. Specifically, we must 
deepen our cooperation with our international partners to develop 
credible rehabilitation and reintegration programs as part of a durable 
counterterrorism strategy. We must ensure that our detention policies 
remain principled and consistent with the rule of law, that they evoke 
credibility with our public and the international community, and that 
they can be sustained into the future as a useful tool in our 
counterterrorism fight.

                                  IRAQ

    111. Senator Inhofe. Mr. Panetta, there continues to be concerns 
about our ability to safely withdraw forces out of Iraq by the end of 
the year. Four days ago, several servicemembers were killed in eastern 
Baghdad in a rocket attack. If confirmed, what steps will you take to 
ensure our forces can safely withdraw from Iraq?
    Mr. Panetta. The current security agreement gives us the right to 
defend ourselves and Iraqi forces all the way through our drawdown. We 
will approach our security posture throughout the drawdown in 
partnership with Iraqi forces. We continue to ensure both U.S. forces 
and Iraqi Security Forces (ISF) are prepared for this period of 
transition by continuing to provide training for our Iraqi partners. 
This includes training for Iraqi Police, ISF, and Iraqi Special 
Operations forces. Additionally, we will continue to closely monitor 
external malign influences and refine our deterrent options to address 
any threat posed to our forces. Finally, we will maintain robust self 
defense capabilities throughout the drawdown and address potential 
threats through a combination of kinetic and non-kinetic actions.
    We will maintain a full spectrum of land, air, and naval forces, 
supported by a total complement of Special Operations Forces (SOF), 
Intelligence, Surveillance and Reconnaissance (ISR), logistics, and 
other enablers throughout the drawdown. The plan to withdraw U.S. 
forces from Iraq has been thoroughly briefed and rehearsed, and we will 
retain flexibility to react to changing circumstances.

    112. Senator Inhofe. Mr. Panetta, do you think there will be a U.S. 
military presence in Iraq after 2011?
    Mr. Panetta. I believe some U.S. military personnel would be 
appropriate to support Iraq's continuing needs and enduring U.S. 
national interests, as Secretary Gates has stated. However, any post-
2011 U.S. military mission would require a formal request from the 
Iraqi government, which we would be willing to consider. To date no 
request has been received.

             INVESTIGATION INTO CENTRAL INTELLIGENCE AGENCY

    113. Senator Inhofe. Mr. Panetta, you have opposed Attorney General 
Holder's investigation of possible incidents of abuse by CIA personnel 
during interrogations that went beyond guidelines imposed by the Bush 
administration. You stated: ``I think the reason I felt the way I did 
is because I don't believe there's a basis there for any kind of 
additional action.'' What is the current status of the investigation 
and your opinion of it continuing?
    Mr. Panetta. I refer you to the Department of Justice with respect 
to the status of any investigation. My views are stated in the record.

                   U.S.-GEORGIA STRATEGIC PARTNERSHIP

    114. Senator Inhofe. Mr. Panetta, there have been multiple 
terrorist acts and several terrorist attempts in the territory of 
Georgia orchestrated by the Russian Federation. The last one happened 
just 2 days ago when Georgian police prevented a terrorist plot 
targeting the NATO Liaison office in Tbilisi. The Obama administration 
is aware of these developments. On April 15, 2011, at a meeting in 
Berlin between the foreign ministers of Georgia and NATO, Secretary 
Clinton stated, `` . . . We share Georgian concerns regarding recent 
Russian activities that can negatively affect regional stability.'' 
Despite the ongoing reset policy with the Russian Federation and the 
attempts of the Obama administration to engage Russia positively, 
Moscow persistently continues to undermine the security of Georgia. 
While the timeline for Georgia's NATO membership remains unclear, what 
is your opinion on the steps the United States should undertake to 
enhance the security and stability of Georgia, including any 
possibilities of supporting acquisition of defensive capabilities from 
the NATO countries?
    Mr. Panetta. The United States steadfastly supports Georgia's 
sovereignty and territorial integrity within its internationally 
recognized borders, and is committed to maintaining a strong bilateral 
defense relationship with Georgia.
    Our security assistance and military engagement with Georgia 
focuses on two areas. First, we are focused on strengthening defense 
institutions and providing comprehensive defense assistance covering 
doctrine, personnel management, logistics, education, and training to 
support Georgia's defense reform and modernization efforts along Euro-
Atlantic lines. This approach will ensure the lasting institutional 
transformation of the Georgian Armed Forces and provide the foundation 
for a secure Georgia.
    Second, the United States is assisting the Georgian Armed Forces 
with training and equipping infantry battalions to deploy and operate 
alongside U.S. forces in a counter-insurgency environment in 
Afghanistan. Georgian forces are currently deployed, without caveats, 
as part of the ISAF in Helmand Province.
    In addition to these bilateral efforts, we also encourage our 
international partners to demonstrate support for Georgia's territorial 
integrity and sovereignty. Through NATO, we work with our allies to 
assist Georgia with implementing its Annual National Program and to 
encourage Georgia to use tools available through the NATO-Georgia 
Commission.

                     HUAWEI AND THE IT SUPPLY CHAIN

    115. Senator Inhofe. Mr. Panetta, as CIA Director, you must have 
been concerned about the threat of foreign technology (i.e., hardware, 
software, and services) in the U.S. information system supply chain, 
especially where that technology originates from companies under the 
control of the People's Republic of China. Would you be comfortable 
with Huawei (or a companion company, ZTE) being significant vendors to 
the CIA or DOD? If not, why not?
    Mr. Panetta. Continued globalization marks today's information and 
communications technology (ICT) marketplace. Moreover, DOD represents a 
small portion of the commercial ICT market, and it is unlikely its 
unique high assurance requirements can drive the development of 
commercial off-the-shelf products. Yet the leveraging of the rapid 
technology advancement of the commercial marketplace remains a key DOD 
advantage. While globally sourced technology provides innumerable 
benefits to the Department, it also provides foreign sources with 
increased opportunity to compromise the supply chain by inserting 
malware into ICT in order to access or alter data, and intercept or 
deny communications. Even though the risk of such a supply chain attack 
may be tolerable for many consumers of commercial ICT, the DOD cannot 
ignore these risks to its national security missions.
    In this setting, use of Chinese or other foreign-sourced equipment 
in the absence of adequate risk management would concern me. The DOD is 
taking a proactive risk management approach to address this issue, 
enhancing the acquisition process in light of the changing global 
market to ensure rigor in addressing foreign sourcing risks.
    In response to these risks, DOD is in the process of 
institutionalizing the Trusted Defense Systems/Supply Chain Risk 
Management (SCRM) strategies described in the Report on Trusted Defense 
Systems in Response to National Defense Authorization Act, section 254, 
delivered to Congress in January 2010. The Department's strategy for 
achieving trustworthy defense information and weapons systems in light 
of supply chain risk contains the following core elements:

    1.  Prioritize scarce resources based on mission dependence--
Allocate the Department's systems assurance resources based on their 
criticality and risk of attack.
    2.  Plan for comprehensive program protection--Employ comprehensive 
program protection planning, including systems engineering, supply 
chain risk management, hardware and software assurance, 
counterintelligence, and information assurance to identify and protect 
critical components, functions, technologies, and information using a 
full range of tools, resources, and practices.
    3.  Detect and respond to vulnerabilities in programmable logic 
elements--Invest in enhanced vulnerability detection research and 
development, and transition such analytical capabilities to support 
acquisition.
    4.  Partner with industry--Collaborate with industry to develop 
commercially reasonable standards for global sourcing and SCRM and to 
identify leading edge commercial practices and tools.

    The forgoing strategy is being implemented to protect DOD systems 
from supply chain risk. Through the application of these processes, any 
particular proposed use of Chinese or other foreign-sourced equipment 
would first be evaluated for the supply chain risk to DOD Systems and 
Networks in light of system criticality, all source intelligence, and 
the feasibility of adequate mitigation measures.

    116. Senator Inhofe. Mr. Panetta, do you feel the private sector 
also needs to make better procurement decisions, and also needs 
additional information in order to make better decisions?
    Mr. Panetta. Through the course of developing its Trusted Defense 
Systems Strategy, it became increasingly clear that the DOD was exposed 
to risk through the supply chains of the commercially-owned and 
operated telecommunications infrastructures upon which DOD depends, and 
that the forgoing strategy does not directly address these broader 
risks. To address this gap, DOD and DHS are co-leading an Interagency 
Task Force that will in partnership with industry develop a more 
complete understanding of the relevant technical risks to the U.S. 
telecommunications infrastructure and will assess the dependency of 
vital governmental and economic operations upon that infrastructure. It 
will then evaluate a range of potential technical risk mitigations 
strategies. Central to this activity is an assessment of information 
sharing deficiencies within the telecommunications sector. These 
deficiencies inhibit effective risk management of supply chain risk 
within that sector. While the Task Force is studying these issues, DOD 
in cooperation with other parts of the national security community is 
monitoring specific risks to the broader telecommunications 
infrastructure related to foreign sourcing that could affect national 
security and of which we are already aware. As a result, there have 
been interim actions taken to address specific risks to the broader 
telecommunications infrastructure posed by foreign sourcing.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                            MISSILE DEFENSE

    117. Senator Sessions. Mr. Panetta, the Obama administration's 
Phased-Adaptive Approach for ballistic missile defense in Europe has 
been criticized because it leaves a gap between Iran's movement towards 
ICBMs that can threaten Europe and the United States, and on the other 
hand, the deployment of an American missile defense system that is 
capable of protecting the continental United States from ICBMs. Do you 
see Iran's ICBMs as a threat to the United States and, if so, what 
should be done to close the gap?
    Mr. Panetta. The United States is currently protected against any 
attacks from North Korea or Iran if those countries were able to 
develop and deploy an effective ICBM capability today. This protection 
is a result of investments made over the past decade in a system based 
on GMD. Because of continuing improvements in the GMD system and the 
number of GBIs now deployed compared to potential North Korean and 
Iranian long-range ballistic missile capabilities, the United States 
possesses a capability to counter the projected threat from North Korea 
and Iran for the foreseeable future.
    In order to maintain this advantageous position, the administration 
is taking several steps to improve the protection of the United States 
from the potential ICBM threat posed by Iran and North Korea. These 
steps include the continued procurement of GBIs, the deployment of 
additional sensors, and upgrades to the Command, Control, Battle 
Management, and Communications system.

    118. Senator Sessions. Mr. Panetta, while directing that we sustain 
and enhance our ability to defend the Homeland against limited numbers 
of long-range ballistic missiles, the administration has made defending 
against regional threats ``a top priority of our missile defense 
plans,'' according to Secretary Gates. As a result, funding for the GMD 
system has steadily declined, while the two test failures of the GMD 
system in 2010 suggest the Missile Defense Agency is not doing nearly 
enough to sustain and enhance the system. GMD reductions include:

        <bullet> Cutback deployment from 44 to 30 GBI and cancellation 
        of 10 GBIs in Poland;
        <bullet> $500 million reduction to the GMD program in the 
        fiscal year 2010 budget request;
        <bullet> Fiscal year 2011-2015 funding for GMD declines by $600 
        million when compared to the President's budget last year; and
        <bullet> Obama's GMD budget for fiscal years 2010-2013 is $4 
        billion less than Bush fiscal years 2010-2013 planned budget.

    Will you pledge to complete the deployment of an effective GMD 
system?
    Mr. Panetta. I will support the continued sustainment and 
improvement of the GMD system.
    I share the view of Secretary Gates, who said that the ``protection 
of the United States from the threat of ballistic missile attack is a 
critical national security priority.''
    The current ballistic missile defense posture for the United States 
protects against ICBMs that might be deployed by states like North 
Korea or Iran. Improvements to the existing sensors and software, in 
addition to the procurement of additional GBIs and radars, will 
continue this protection against future ICBM threats from states like 
North Korea and Iran.

    119. Senator Sessions. Mr. Panetta, should we support the emphasis 
on regional missile defense at the expense of Homeland defense?
    Mr. Panetta. The administration has put in place a balanced 
program, which addresses both the short-range and longer-range threats 
in a timely manner and is responsive to development of the threats. The 
forward-based radar that will be deployed as part of Phase 1 of the 
European Phased Adaptive Approach (EPAA), and the deployment of the SM-
3 Block IIB to Europe in Phase 4 of the EPAA, will improve the missile 
defense coverage of Europe while also enhancing protection of the 
United States from a potential ICBM attack from Iran.
    In addition, the administration is making improvements to the 
existing GMD sensors and software and is procuring additional GBIs. The 
United States must also be well hedged against the possibility of rapid 
threat developments or delays in U.S. technological advances. The 
administration has already made several decisions to strengthen the 
U.S. hedge posture, including the construction of Missile Field 2 at 
Fort Greely, AK, mothballing six GBI silos at Missile Field 1 at Fort 
Greely instead of decommissioning them, and the development and 
assessment of a two-stage GBI.

                             NUCLEAR POLICY

    120. Senator Sessions. Mr. Panetta, President Obama identified a 
``world without nuclear weapons'' as a long-term national security goal 
in an April 2009 speech. However, when asked in the advance policy 
questions about your assessment of the threat posed by Iran and North 
Korea, you responded that there is a real risk that Iran's nuclear 
program will prompt other countries in the region to pursue nuclear 
options. In addition, you stated that North Korea's newly revealed 
uranium enrichment activities underscores that it poses a growing and 
direct threat to the United States, our allies in the region, and the 
international community. Do you share the goal of a world without 
nuclear weapons?
    Mr. Panetta. As stated in the NPR Report, the greatest threat 
facing our Nation is nuclear proliferation. The NPR Report also stated 
that the United States is committed to the long-term goal of a world 
free of nuclear weapons. As long as nuclear weapons exist, however, the 
United States will sustain a safe, secure, and effective nuclear 
deterrence force. The nuclear deterrence force will continue to play an 
essential role in deterring potential adversaries and reassuring allies 
and partners around the world of the U.S. commitment to their security. 
Therefore, without jeopardizing our traditional deterrence and 
reassurance goals, we are now able to shape our nuclear weapons policy 
and force structure in ways that will better enable us to meet our most 
pressing security challenges.

    121. Senator Sessions. Mr. Panetta, do you believe that this goal 
is realistic? If so, how does this square with the reality of the 
threat posed by Iran's and North Korea's nuclear programs?
    Mr. Panetta. As the President stated, such a goal is ambitious and 
will not be reached quickly. Presently, changes in the nuclear threat 
environment have altered the hierarchy of our nuclear concerns and 
strategic objectives. In coming years, we must give top priority to 
discouraging additional countries from acquiring nuclear-weapons 
capabilities and stopping terrorist groups from acquiring nuclear 
weapons or the materials to build them. At the same time, we must 
continue to maintain stable, strategic relationships with Russia and 
China. We must also counter threats posed by any emerging nuclear-armed 
states, thereby protecting the United States and our allies and 
partners against nuclear threats or intimidation, and reducing any 
incentives that any emerging nuclear-armed states might have to seek 
their own nuclear deterrents.

    122. Senator Sessions. Mr. Panetta, given that the nuclear age has 
had an absence of great power conflicts like World War II, what are the 
risks and dangers of a ``world without nuclear weapons''?
    Mr. Panetta. Nuclear forces continue to play an essential role in 
deterring potential adversaries and reassuring allies and partners 
around the world. Until such time as the administration's goal of a 
world free of nuclear weapons is achieved, the maintenance of nuclear 
capabilities will remain a core mission of DOD.
    Our defense posture will continuously adapt to changes in the 
strategic environment. Credibly underwriting U.S. defense commitments 
in a world without nuclear weapons will demand an increased reliance on 
tailored approaches to deterrence that integrate all aspects of 
national power. This includes land, air, and naval forces capable of 
fighting limited and large-scale conflicts in environments where anti-
access weaponry and tactics are used, as well as forces prepared to 
respond to the full range of challenges posed by state and non-state 
groups.
    The United States is positioned with capabilities across all 
domains to deter a wide range of attacks or forms of coercion against 
the United States, its allies, and partners. If deterrence fails and 
adversaries challenge our interests with the threat or use of force, 
the United States must be prepared to respond in support of U.S. 
national interests. The range of plausible future challenges is 
significant. Potential adversaries of the United States are likely to 
employ a diverse array of approaches and capabilities if and when they 
choose to oppose the United States, its allies, or its partners. In the 
future, U.S. forces must be sized and shaped to provide the maximum 
possible versatility for the broadest plausible range of conflicts. A 
deliberate, continuing assessment of national interests, military 
requirements, and the strategic environment should guide U.S. global 
defense posture planning. In the emerging security environment, the 
United States will tailor its defense posture to mitigate foreseeable 
security risks and manage future security challenges effectively.

    123. Senator Sessions. Mr. Panetta, what are your views about 
future nuclear force levels?
    Mr. Panetta. As stated in the 2010 NPR Report, any future nuclear 
reductions must continue to strengthen deterrence of potential regional 
adversaries, maintain strategic stability vis-a-vis Russia and China, 
and maintain the reliability and effectiveness of our security 
assurances to our allies and partners. We will continue to assess the 
force size required for an effective deterrent. DOD is committed to 
sustaining and modernizing a safe, secure, and effective nuclear 
deterrent in an efficient and cost-effective manner that supports 
strategic stability.

    124. Senator Sessions. Mr. Panetta, are you committed to 
supporting, maintaining, and modernizing America's triad of nuclear 
delivery systems--that is, America's ICBMs, SLBMs, and nuclear-armed 
long-range bomber aircraft, in addition to specifically meeting the 
commitments President Obama made in his letter during the START debate?
    Mr. Panetta. I am committed to the sustainment of a safe, secure, 
and effective nuclear deterrent, and I support the administration's 
plan for modernization and sustainment as laid out in the Report to 
Congress pursuant to section 1251 of the National Defense Authorization 
Act for Fiscal Year 2010. I will continue the DOD commitment in an 
efficient and cost-effective manner.

    125. Senator Sessions. Mr. Panetta, as a Congressman, you voted 
against nuclear testing and voted for a nuclear test ban. You also 
voted for funding cuts and against the development of numerous missile 
systems, including the MX missile, Pershing II, and Trident II, as well 
as voting for funding reductions and cuts to the B-1 and B-2 bombers. 
Will you support and fulfill policies even if you personally disagree 
with them?
    Mr. Panetta. Yes. As my record of service in the Executive Branch 
demonstrates, I am fully committed to executing the President's 
policies and complying with all legal requirements enacted by Congress, 
while offering my own candid advice to the President.

                           RUSSIA COOPERATION

    126. Senator Sessions. Mr. Panetta, in your response to the advance 
policy questions, you state that you agree with missile defense 
cooperation with Russia. What evidence have you seen in the past that 
would demonstrate that Russia is a reliable partner for cooperation in 
missile defense?
    Mr. Panetta. The United States and Russia conducted a robust and 
successful missile defense exercise program, with five exercises 
conducted between 1996 and 2006. This cooperation, unprecedented at the 
time, contributed to the understanding of our respective missile 
defense capabilities and interests and demonstrated our countries' 
shared interest in and ability to work together to address common 
security threats.
    With our new push for deeper missile defense cooperation, we seek 
to responsibly foster and sustain a stable relationship with Russia. As 
the pace of military-technical innovation increases and the global 
security environment evolves, we believe it is important to enlist 
Russia's help in addressing common 21st century security challenges, 
specifically regional actors seeking illicit capabilities.
    Appropriate levels of cooperation with Russia on missile defense 
would send a powerful signal to regional actors, such as Iran, that 
Russia and the United States are working together to counter the threat 
posed by the proliferation of ballistic missiles and pursuit of nuclear 
weapons capabilities. Our goal is a level of cooperation that will 
improve U.S. and Russian security and the security of our NATO allies 
while increasing transparency to reduce Russia's concerns about U.S. 
missile defense efforts.

    127. Senator Sessions. Mr. Panetta, what does cooperation mean to 
you? Does it include a joint area where Russians have their hand on a 
launch trigger?
    Mr. Panetta. The administration has been clear that Russian 
objections will not change or limit our missile defense system 
capabilities or missile defense deployments, nor will Russia have a 
``launch trigger'' that will control any U.S. or NATO missile defense 
systems.
    The administration's concept for missile defense cooperation stems 
from the conviction that NATO must be responsible for defense of NATO 
territory and that Russia should be responsible for defense of Russian 
territory. We would operate our respective systems independently but 
cooperatively, including sharing of sensor data that may enhance the 
ability of both systems to defeat missile attacks by regional actors 
such as Iran.

    128. Senator Sessions. Mr. Panetta, in 2009, the administration 
initiated a reset in relations with the Russians. I would like to 
understand your assessment of the impact of this so-called ``reset'' of 
U.S.-Russian relations, especially in light of how they have threatened 
their neighbors and invaded Georgia. Specifically, has the ``reset'' 
resulted in an improved Russian strategic, diplomatic, and economic 
posture toward our allies in Central Europe, including Georgia?
    Mr. Panetta. Our approach in transforming our defense relationship 
with Russia has been to work to integrate Russia more closely into the 
fabric of the international community to ensure that parties on all 
sides have more of a stake in keeping the relationship on the right 
track. Our goal has been to cooperate with Russia where we have common 
interests but not at the expense of our principles or our friends.
    Through interactions with Russia, we hope we can build the 
infrastructure for future collaboration, identify and clarify the 
extent of agreement and disagreement, counteract narratives of ``zero-
sum'' competition, and reform existing structures, such as the NATO-
Russia Council and the Organization for Security and Cooperation in 
Europe, to meet new challenges.
    We have seen some key successes over the course of the past 2 years 
on Afghanistan, strategic arms control, Iran, and bilateral defense 
relations. Military-to-military relations were revitalized in 2009, 
including the resumption of regular consultations between Chiefs of 
Defense and their staffs; military exchanges, visits, and exercises, 
and a broadening and deepening of cooperation in such areas as armed 
forces reform, defense policy and national security priorities, 
transparency and confidence-building measures, and regional and global 
security.
    In all our engagements, we remind our Russian counterparts of 
Russia's obligation to respect the security, sovereignty, territorial 
integrity, and independence of its neighbors. We are open about our 
defense engagement with those countries and make clear that we welcome 
the opportunity to work with Russia's neighbors as well as with Russia.

    129. Senator Sessions. Mr. Panetta, in addition, has the ``reset'' 
resulted in improved Russian cooperation on the nuclear proliferation 
challenges posed by Iran and North Korea? Please explain specific 
improvements.
    Mr. Panetta. In general, the ``reset'' has resulted in greater 
cooperation by the Russian Federation. For example, Russia agreed to 
United Nations Security Council Resolutions (UNSCR) 1874 and 1929 
against North Korea and Iran, respectively. After the adoption of UNSCR 
1929, Russia cancelled the delivery of the S-300 missile defense system 
to Iran.

                          AFGHANISTAN AND IRAQ

    130. Senator Sessions. Mr. Panetta, the United States cannot give 
away the work of its magnificent military in Afghanistan and Iraq by a 
too precipitous withdrawal. How will you monitor the situation on the 
ground in Afghanistan and Iraq to ensure that stability remains during 
and after the withdrawal of U.S. forces?
    Mr. Panetta. I completely agree that the withdrawal from 
Afghanistan must be meticulously planned and not precipitous in order 
to not risk the gains we have made at great sacrifice of our blood and 
treasure. I will monitor the situation through the eyes of our 
commanders on the ground and by personally visiting Afghanistan to 
assess for myself. Preserving our recent gains will be my top priority, 
as we begin to transition security lead to the ANSF.
    Regarding Iraq, General Austin and his staff have a number of 
systems in place to monitor the situation in Iraq during the drawdown. 
He will report regularly to me, the Chairman of the Joint Chiefs of 
Staff, and General Mattis on issues relating to security, politics, 
rule of law, and training and readiness for foreign military and police 
forces. Additionally, my office and the Joint Staff participate in 
National Security Staff led weekly updates at the deputies' committee 
to discuss Iraq from a broader interagency perspective. Finally, DOD 
maintains active involvement in a robust interagency process of weekly 
working groups covering a variety of topics including security, rule of 
law, transition, international engagement, and strategic 
communications.

    131. Senator Sessions. Mr. Panetta, what contingency plans do you 
have in place in the event that a redeployment is required during the 
drawdown to ensure stability?
    Mr. Panetta. Contingency planning is an ongoing effort by our 
military to ensure we are ready for rapidly changing situations. I will 
work closely with the Chairman of the Joint Chiefs of Staff and 
military commanders to ensure we remain ready for any contingency.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                  LOANS AND CREDIT FOR SERVICEMEMBERS

    132. Senator Chambliss. Mr. Panetta, I understand that DOD 
regulates interest rates on short-term loans that do not amortize when 
made to its uniformed servicemembers, capping them at 36 percent. 
Traditional, amortizing installment loans are exempt from such interest 
rate caps. What is DOD's current position on short-term loans that do 
not amortize and those that do amortize?
    Mr. Panetta. DOD does not have a position on any specific types of 
loans given to servicemembers. The Department proposes to help ensure 
that servicemembers and their families receive fair protections by 
working with Federal and State governments on existing and proposed 
policies impacting all consumers. The goal is to try to eliminate the 
need to identify servicemembers and their families separately for 
protections, which may create unintentional barriers to credit.

    133. Senator Chambliss. Mr. Panetta, how does DOD propose to 
balance consumer protection for its members without creating 
unintentional barriers to credit for them in the future?
    Mr. Panetta. The Department proposes to help ensure that 
servicemembers and their families receive fair protections by working 
with Federal and State governments on existing and proposed policies 
impacting all consumers. The goal is to try to eliminate the need to 
identify servicemembers and their families separately for protections, 
which may create unintentional barriers to credit.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                             FUTURE THREATS

    134. Senator Wicker. Mr. Panetta, the United States faces a number 
of national security challenges today and our forces--our resources--
are stretched thin in order to meet those challenges. However, we also 
know that the future will bring its own set of challenges and threats 
to the security and prosperity of the next American generation. In 
order to prepare for those threats and meet our responsibilities to 
those who follow us, we must ensure the actions we take will give 
future generations the flexibility and resources they need, including 
an industrial base capable of sustaining our future military forces. As 
Secretary, what actions will you take to examine the industrial base at 
all levels, develop an industrial base policy and communicate that 
policy with the private sector, to ensure that we maintain a robust and 
capable aerospace and defense industrial base capable of meeting the 
threats of the future?
    Mr. Panetta. I understand the Department is examining the 
industrial base by conducting a sector-by-sector, tier-by-tier (S2T2) 
research effort. S2T2 is a process to expand the scope of the 
Department's industrial base assessments beyond their traditional 
programmatic perspective and to create a database on industry for use 
as an input to many decision-making processes across the Department.
    I am committed to maintaining an open dialogue with the private 
sector and increasing the transparency within which we operate to the 
maximum extent permitted by law.

                             EXPORT CONTROL

    135. Senator Wicker. Mr. Panetta, it is widely accepted that the 
current export control regime is antiquated and reduces U.S. 
industries' global competitiveness. Since the addition of commercial 
satellites to DOS's technology control list, we have seen the U.S. 
global share of that industry reduced from over 70 percent to less than 
30 percent as the Europeans and others have marketed their products as 
International Traffic in Arms Regulations compliant. What actions are 
necessary to be taken to improve the export control regimen?
    Mr. Panetta. On May 6, 2011, DOD and DOS transmitted a joint 
interim report to Congress in response to section 1248 of the National 
Defense Authorization Act for Fiscal Year 2010. The report, entitled 
``Risk Assessment of United States Export Control Policy,'' is a 
conservative starting point for transferring satellite and related 
items from the USML to the CCL. It recommends that, under certain 
conditions, commercial communications satellites, systems, subsystems, 
and components be controlled on the CCL.
    A more comprehensive assessment of controls on satellites, related 
items, and technology is currently underway, as part of the 
administration's Export Control Reform (ECR) initiative. DOD, with its 
interagency partners, is expected to complete this review of USML 
Category XV (Spacecraft Systems and Associated Equipment) in the coming 
months. The draft will include recommendations for what items should 
remain on the USML and those that can be moved to the CCL. No items 
controlled on the USML by statute will be removed from the USML unless 
and until the authority to do so is provided by Congress.
    I understand that DOD expects to provide the final section 1248 
report to Congress later this year, based on the findings from work 
underway in the ECR initiative. Since the administration has not 
completed its revision of controls on spacecraft in the USML, I cannot 
provide any conclusions at this time regarding its recommendations. 
However, consistent with our overall approach to ECR, I expect that the 
administration will consider how to provide ``higher fences around 
fewer items,'' and increase transparency and predictability so that the 
U.S. space industry will be able to compete globally and more 
efficiently.
    I am aware that current U.S. law limits the flexibility of the 
President and requires control of these items on the USML per section 
1513 of the National Defense Authorization Act for Fiscal Year 1999. If 
confirmed, I look forward to working with Congress on the legislative 
changes that would be required to implement any proposed changes.

                       TECHNOLOGICAL SUPERIORITY

    136. Senator Wicker. Mr. Panetta, U.S. defense policy since World 
War II has been to rely on advances in technology rather than force 
size for our national security. Do you believe that the Pentagon should 
strive to maintain our technological superiority in all mediums of 
combat?
    Mr. Panetta. I fully understand the role advanced technology and 
technological superiority has on the strategic options available to the 
President, including the size and shape of our forces. We live in an 
era where nations have increased their investments in world-class 
science and technology talent and facilities. While much of this 
investment is centered on commercial applications, there are 
significant national security implications. These investments provide 
nations with options to develop new military capabilities and non-state 
actors the opportunity to build asymmetric capabilities to challenge 
our forces.
    Given this environment, the Department must continue to build upon 
the technical strengths it has developed over the decades since World 
War II. The combined scientific, technical, and engineering talent in 
our universities, the defense industrial base, other parts of 
commercial industry, and Government labs are second to none in the 
world. If confirmed, I will ensure the Department's investments in 
research, development, test and evaluation protect this technical 
advantage while providing the taxpayer with the greatest return on 
their tax dollars in ensuring the technical superiority of our forces.

                    INDUSTRIAL POLICY AND LEADERSHIP

    137. Senator Wicker. Mr. Panetta, throughout the post-World War II 
era, the United States has maintained its military leadership in large 
part as a result of its industrial leadership--particularly in 
aerospace and other defense industries. That leadership has only been 
possible by tremendous work on the part of the employees of that 
industry--the engineers, scientists, and machinists. Maintaining this 
leadership in the future will require that DOD identify and communicate 
what it needs to counter future military threats. As Secretary, what 
will you do to map out the industrial policy and needs of DOD?
    Mr. Panetta. As Secretary of Defense, I will ensure that Department 
policies, procedures, and actions: (1) stimulate and support vigorous 
competition and innovation in the industrial base supporting defense; 
and (2) establish and sustain cost-effective industrial and 
technological capabilities that assure military readiness and 
superiority.
    I will do so by: (1) monitoring industry readiness, 
competitiveness, ability to innovate, and financial stability as the 
Department moves to capabilities-based acquisitions in an era of 
increasingly sophisticated systems; (2) leveraging Department research 
and development, acquisition, and logistics decisions to promote 
innovation, competition, military readiness, and national security; (3) 
leveraging statutory processes (for example, the Defense Priorities and 
Allocations System; Hart-Scott-Rodino antitrust evaluations; Exon-
Florio Committee on Foreign Investment in the United States 
evaluations) and promoting innovation, competition, military readiness, 
and national security; (4) leading efforts for the Department to engage 
with industry to ensure openness and transparency; and (5) continuing 
our long history of supporting science, technology, engineering, and 
mathematics education initiatives in a collaborative process at local, 
regional, and national levels.

    138. Senator Wicker. Mr. Panetta, do you believe that our aerospace 
and defense industrial base are essential strategic assets and that 
strategic assessments must include the impact on the industrial base 
from policy decisions?
    Mr. Panetta. Yes. In order for DOD to develop, field, and maintain 
high-quality equipment, it must rely on a robust and capable defense 
industry. We must understand, therefore, the impact of the actions we 
take on the industrial base and consider those impacts when making 
strategic decisions.

    139. Senator Wicker. Mr. Panetta, as defense budgets flatten, how 
do you think rapidly rising personnel and operations accounts can be 
prevented from driving the investment accounts below 35 percent of the 
defense top line needed to modernize the forces for future threats?
    Mr. Panetta. The Department will need to continue to look for ways 
to become more efficient to accomplish the core Defense mission. The 
Department is conducting a comprehensive review of the Defense programs 
in light of the current fiscal environment. I will ensure that 
everything is on the table and assess each program in terms of its 
contribution to our national security strategy.

    140. Senator Wicker. Mr. Panetta, alone among major nations, the 
United States does not have a defense industrial base policy. The 
current DOD policy of relying on market forces to sustain the health of 
the industrial base ignores the fact that DOD is the sole customer for 
military-unique weapons. Do you intend to continue the current 
initiative to develop an industrial base strategy?
    Mr. Panetta. The Department recognizes the defense industrial base 
is more global, commercial, and financially complex than ever before.
    I understand the Department regularly addresses specific 
industrial-base concerns within programs and services and has also 
embarked on a more comprehensive sector-by-sector, tier-by-tier 
analysis of the industrial base, which will help inform future 
programmatic decisions, expand the scope of DOD industrial base 
assessments, and create a database on industry for use as an input to 
many decisionmaking processes across the Department.

    141. Senator Wicker. Mr. Panetta, such a strategy will work best if 
there is open communication between defense officials and industry 
leaders so that industry can shape itself to meet the needs of DOD. 
Secretary Gates began a Secretary/CEO dialogue to facilitate that 
communication. Do you intend to continue that dialogue?
    Mr. Panetta. I am committed to maintaining an open dialogue with 
industry and increasing the transparency within which we operate to the 
maximum extent permitted by law.

                                PAKISTAN

    142. Senator Wicker. Mr. Panetta, I am taking a close look at the 
$1.1 billion requested by the administration for the Pakistan 
Counterinsurgency Capability Fund (PCCF). I am of two minds: on the one 
hand, I understand the importance of Pakistan if we are to succeed in 
Afghanistan and in the region; on the other hand, Pakistan has received 
a lot of U.S. assistance over the past few years (nearly $6 billion 
combined in fiscal year 2010 and fiscal year 2011 and over $5 billion 
alone in the fiscal year 2012 request). My initial thinking is that the 
funding needs additional benchmarks and criteria which ensure that our 
money is spent wisely and that the Pakistanis are cooperating with us. 
I am interested in your perspective on this subject, both broadly and 
specifically, on what Pakistan is doing or not doing to ensure 
accountability for any aid we provide to the country.
    Mr. Panetta. The PCCF and the Pakistan Counterinsurgency Fund 
(PCF), jointly implemented by DOS and DOD, is the cornerstone of our 
efforts to enhance the Pakistani military's ability to conduct 
effective military operations against militants operating within the 
country's borders.
    Since 2009, DOD has executed PCF/PCCF to train and equip those 
forces that Pakistan has committed to the counterinsurgency (COIN) 
fight. Unlike traditional security assistance, PCF is structured such 
that DOD's field element in Pakistan, the Office of the Defense 
Representative-Pakistan (ODRP), plays the lead role in identifying the 
Pakistani military's COIN capability shortfalls. ODRP also identifies 
the requirements for training, equipment, and infrastructure that would 
address these capability shortfalls. These requirements have focused on 
enhancing COIN-specific capabilities like intelligence-driven 
operations; air mobility; close air support, night operations, and 
countering improvised bombs.
    PCF/PCCF is structured so that the delivery of equipment is tied to 
our ability to train Pakistan's security forces. In the weeks and 
months ahead, continued delivery of PCF/PCCF training and equipment 
will require resolution of issues like the Pakistan Army's ordered 
drawdown of U.S. military personnel, the primary implementers of this 
program.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

                            DEFENSE SPENDING

    143. Senator Graham. Mr. Panetta, Secretary Gates has previously 
identified the Gross Domestic Product (GDP) as a benchmark for defense 
spending. Admiral Mullen previously stated that GDP should serve as a 
reference to ``stimulate discussion relative to the affordability of 
increased defense spending in a challenging security environment.''
    Since 2003, GDP as a percentage of defense spending has increased 
from 4.34 percent to 5.78 percent in 2010. As a percentage of our 
Nation's wealth, these figures are on average markedly lower than 
spending in other times of war:

        <bullet> World War II (5.72 percent to 42.04 percent);
        <bullet> Korean Conflict (8.25 percent to 15.01 percent); and
        <bullet> Vietnam War (7.65 percent to 10.86 percent).

    Do you agree with Secretary Gates, Admiral Mullen, and others that 
the GDP should act as a marker for defense spending? If so, what does 
the lower percentage average spent during the war on terror as compared 
to other times of conflict lead you to conclude about future defense 
spending as a percentage of GDP?
    Mr. Panetta. Defense expenditures are currently at a much lower 
percentage of GDP than during previous major wars. Defense consumed 
more than half the Federal budget, and the portion of the Nation's 
economic output devoted to the military was about 9 percent in 1961. By 
comparison, this year's base defense budget of $530 billion--the 
highest since World War II adjusted for inflation--represents less than 
15 percent of all Federal spending and equates to roughly 3\1/2\ 
percent of GDP--a number that climbs to about 4\1/2\ percent when the 
war costs in Iraq and Afghanistan are included. I do not believe the 
Department is likely to return to Cold War levels of defense 
expenditures, at least as a share of national wealth anytime soon--a 
sentiment also expressed by Secretary Gates.

                        LIMITING INTERROGATIONS

    144. Senator Graham. Mr. Panetta, I understand that you support the 
Obama administration's policy of limiting the interrogation techniques 
of U.S. military and CIA personnel to those consistent with a U.S. Army 
Field Manual, FM 2-22.3. I am concerned that President Obama's 
restrictions on interrogations are misplaced, unnecessarily hamper our 
interrogators, and provide an advantage to our enemies. Should a U.S. 
Army Field Manual be the single standard for governance on 
interrogation methods for the U.S. intelligence community or should the 
Intelligence Community have its own, possibly classified, standard?
    Mr. Panetta. As I have stated before, I fully support the 
President's decision to establish Army Field Manual 2-22.3 as the 
single standard applicable to all interrogations by U.S. Government 
personnel. This decision was based on the results of a careful review 
conducted by the President's interagency Interrogation and Transfer 
Policies Task Force which was charged with evaluating the sufficiency 
of the interrogation practices and techniques in the Army field manual. 
The Task Force found that additional techniques were not necessary. I 
believe we should do everything possible within the law to gather 
information, and I agree with those who state that information can be 
obtained without resorting to measures such as waterboarding. I do not 
support a set of classified interrogation methods that are not open to 
public scrutiny.

    145. Senator Graham. Mr. Panetta, do you believe there is any risk 
in limiting all government interrogations to the U.S. Army Field 
Manual, a publicly available document?
    Mr. Panetta. No. I fully support the President's decision to 
establish Army Field Manual 2-22.3 as the single standard applicable to 
all interrogations by U.S. Government personnel. This decision was 
based on the results of a careful review conducted by the President's 
interagency Interrogation and Transfer Policies Task Force which was 
charged with evaluating the sufficiency of the interrogation practices 
and techniques in the Army field manual.

                              RAIL ASSETS

    146. Senator Graham. Mr. Panetta, the use of rail to move, 
mobilize, and reset our Nation's military personnel and assets has 
proven to be a cost-effective, efficient, and environmentally-friendly 
mode of transportation. Do you agree that the use of rail to move DOD's 
assets is a ``must-be included'' in any mobilization or reset plan 
developed?
    Mr. Panetta. Rail as well as air, sea, and road are needed to 
deploy and redeploy forces, and for the movement of sustainment 
requirements. The effective use of the different modes must be 
integrated to support and synchronize timely and cost-effective 
deployment of personnel, their equipment and the associated 
sustainment.
    Surface (both ship and rail) are the most cost efficient modes for 
moving large volumes of military equipment and sustainment/resupply 
requirements.
    The Department relies heavily upon commercial rail, truck, ocean 
and air assets, and through the partnerships that are developed, to 
meet national security objectives. It is our desire that commercial 
industry maintains these critical capabilities.

    147. Senator Graham. Mr. Panetta, with the drawdowns in Iraq and 
Afghanistan, it is critical to have a logistics infrastructure capable 
of moving DOD's vehicles and assets to and from their reset and storage 
facilities. Do you feel the required rail assets are currently in place 
to support the surge in reset and storage requirements that will come 
from the drawdowns in Iraq and Afghanistan?
    Mr. Panetta. Currently, the numbers of DOD and commercial rail 
assets available are sufficient to meet requirements. However, over the 
next decade commercial rail assets will reach federally-mandated 
retirement timelines. DOD is currently studying this issue and is 
assessing courses of action designed to ensure significant commercial 
rail assets are available to meet the Department's future needs.

                         RADIATION AND MEDICINE

    148. Senator Graham. Mr. Panetta, in light of the recent situation 
in Japan, coupled with the ever-present threat of terrorist attacks on 
our Nation, where do you rank the importance of our military's 
capability to provide the best possible protection against radiation 
exposure?
    Mr. Panetta. Protecting our military forces from radiation exposure 
is one of the Department's highest priorities. It is an integral part 
of our overall emphasis on protecting the warfighters and our Nation 
against the threat of chemical, biological, radiological and nuclear 
(CBRN) events, whether intentional or accidental. The Department has a 
well-established strategy designed to deter and deny our adversaries 
the ability to threaten our Nation with weapons of mass destruction. 
Should our forces face the dangerous effects of CBRN weapons or 
materials, their protection and ability to mitigate those effects are 
essential to our success. Currently, I see our radiation protection 
priorities as being within larger CBRN defense efforts to: (1) 
strengthen our capability to respond and recover from a CBRN incident; 
(2) provide the necessary U.S. Food and Drug Administration-approved 
prophylactics (vaccines and other preventative products) and 
therapeutics (treatments) that protect against CBRN hazards; (3) 
provide comprehensive situational awareness necessary to counter the 
threat, along with the ability to share information and data analysis 
to guide the appropriate response to a CBRN incident; (4) provide the 
necessary detection and diagnostics to keep people safe and identify 
those affected; and (5) maintain and improve current individual and 
collective protection capabilities.

    149. Senator Graham. Mr. Panetta, in your opinion, are our Nation's 
first responders currently equipped with the best possible pre- and 
post-exposure radiation therapeutics and, if not, would you agree that 
we would be remiss in not ensuring that our government was doing 
everything in its power to develop and stockpile the most advanced and 
clinically-tested drugs presently available?
    Mr. Panetta. It is DOD's policy to provide the best possible 
medical countermeasures, including prophylaxis and therapeutics, to 
protect our military and civilian personnel. To this end, I will 
continue to work with the Service Chiefs to ensure our installation 
emergency managers continue to reach out to their civilian counterparts 
to ensure we are doing the right planning to meet any radiological 
hazard. In addition, we will continue cooperating with the Departments 
of Health and Human Services and the Department of Homeland Security to 
maintain in the National Strategic Stockpile adequate supplies of the 
best countermeasures available.

    150. Senator Graham. Mr. Panetta, are you aware that the Armed 
Forces Radiobiology Research Institute has committed years of research 
and millions of dollars toward developing a very mature prophylactic 
radiation protection drug and that it has received positive test 
results and garnered widespread support across Government agencies?
    Mr. Panetta. Yes, I am aware of the efforts by the Armed Forces 
Radiobiology Research Institute to develop new drugs that could be used 
for protection against radiation. I understand that they have been 
working on a promising candidate, which is in clinical testing 
according to Food and Drug Administration protocols.

    151. Senator Graham. Mr. Panetta, that despite all this, inter-
departmental procedures and roadblocks have inhibited such a drug from 
being stockpiled by our military which has, in fact, repeatedly been 
the request of the Office of Secretary of Defense for Health Affairs?
    Mr. Panetta. We will work with the Food and Drug Administration as 
it conducts clinical tests according to its protocols.

    152. Senator Graham. Mr. Panetta, if confirmed, would you be 
willing to further investigate this issue in order to determine what 
roadblocks have halted the procurement of such a promising drug, and 
how best to remove such hindrances?
    Mr. Panetta. Yes, I would be willing to look into this issue.

    153. Senator Graham. Mr. Panetta, would you commit to further 
dialogue on this issue and to provide regular updates to ensure our 
government and the American people are as protected as possible against 
these imminent threats?
    Mr. Panetta. Yes, I will certainly look into this issue.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                            DOD BUDGET CUTS

    154. Senator Cornyn. Mr. Panetta, in his April speech on debt 
reduction, the President targeted security spending for $400 billion in 
cuts over the next 12 years, the preponderance of which is expected to 
come from the DOD budget. If confirmed, will you pursue cuts to the 
defense budget that go even further than that?
    Mr. Panetta. It is premature to provide an assessment of additional 
defense cuts until we complete our review associated with the 
President's target.

                                PAKISTAN

    155. Senator Cornyn. Mr. Panetta, in your written responses to the 
advance policy questions, you note that ``U.S. strategic interests in 
Pakistan encompass both our relationship with Pakistan itself and 
Pakistan's role in the campaign against al Qaeda.'' What is absent from 
your response is any mention of the major terrorist group, Lashkar-e-
Taiba (LeT). Director of National Intelligence Clapper recently 
testified before this committee that LeT is becoming ``an increasing 
threat to U.S. forces in Afghanistan.'' What is your assessment of the 
threat that LeT poses to U.S. interests, as well as our allies?
    Mr. Panetta. [Deleted.]

                          OVERDUE DOD REPORTS

    156. Senator Cornyn. Mr. Panetta, the Senate-passed version of the 
National Defense Authorization Act for Fiscal Year 2010 included an 
amendment I sponsored that required DOD to report to Congress within 90 
days on the status and capabilities of Taiwan's current air force, as 
well as an analysis of the specific weapons systems Taiwan would need 
in order to defend itself. That report is now 16 months overdue. 
Likewise, DOD is also overdue in submitting the required annual ``China 
Military Power Report'', which is mandated for delivery no later than 
March 1 of each year. The failures by DOD to submit timely reports, as 
mandated, undermine Congress' oversight role. If confirmed, will you 
commit to ensuring that these two important reports are submitted to 
Congress without further delay?
    Mr. Panetta. Yes. I am committed to providing these and other 
reports to Congress in a timely manner.

                           VIOLENCE IN MEXICO

    157. Senator Cornyn. Mr. Panetta, I remain extremely concerned by 
the intense cartel-driven violence occurring in Mexico, just a stone's 
throw from my own home State, and also what I consider to be a lack of 
focus on this problem by the current administration. This 
administration does not seem to have a coherent, meaningful strategy in 
place to help the Government of Mexico regain control over its country 
and defeat the cartels. Instead, momentum seems to be moving in the 
opposite direction. Mexican President Felipe Calderon has boldly taken 
on the cartels, but I'm concerned about whether his successor will 
share his commitment to fight the cartels and restore law and order in 
Mexico. What do you see as the risks to our own national security if 
the Mexican cartels are not defeated?
    Mr. Panetta. I share your concern about the increased violence 
levels in Mexico and the threats posed by transnational criminal 
organizations (TCOs) operating there and, increasingly, throughout the 
region. Although concerned about the escalating violence, the U.S. 
Government remains confident that Mexico's democracy is strong and its 
government maintains control over its territory.
    As I understand it, the U.S. Government began coordinating 
assistance to Mexico under the Merida Initiative in 2008 with the goal 
of supporting the Government of Mexico's efforts to build capacity to 
combat TCOs, strengthen the rule of law and respect for human rights, 
reduce violence, and stem the flow of drugs north and arms and illicit 
money south. DOD is working with its counterparts in Mexico to assist 
their efforts to dismantle TCOs. The Department recognizes that, moving 
forward, U.S. efforts should reinforce the progress made in disrupting 
cartels. The United States should also reinforce Mexico's move toward 
institutionalizing its capacity to act on public safety and security 
issues, transform its borders to respond to security threats while at 
the same time remaining competitive globally, and ensure that 
communities see the benefit of respecting human rights and the rule of 
law and adopting a culture of lawfulness.
    It does not appear that TCO violence is spilling across the border 
into the United States. Still, the Department recognizes that TCOs have 
linkages to illicit groups operating inside the United States, 
including drug traffickers and gangs that pose health, law enforcement, 
economic, and security challenges to cities and towns throughout the 
United States. Although Mexico has called upon its armed forces to 
support Mexican law enforcement efforts in combating TCOs, they 
continue to see the problem as law enforcement in nature, as does the 
U.S Government. DOD, along with its interagency partners, is working 
closely with its Mexican counterparts to support their efforts to 
dismantle TCOs, and if confirmed, in coordination with interagency 
partners, I will continue the Department's efforts to provide 
assistance as requested by the Government of Mexico.

    158. Senator Cornyn. Mr. Panetta, could Mexico become a failed 
state?
    Mr. Panetta. [Deleted.]

    159. Senator Cornyn. Mr. Panetta, what would a failed state mean 
for the United States?
    Mr. Panetta. [Deleted.]

    160. Senator Cornyn. Mr. Panetta, I am encouraged by your written 
response acknowledging that, in order to confront the threats posed by 
transnational criminal organizations in Mexico, ``it is necessary to 
harness the talents and resources of DOD, in coordination with those of 
DOD's Federal partners and the Governments of Mexico and Central 
American nations . . . . I believe a long-term solution will require a 
whole-of-government effort.'' What would you do to leverage DOD 
resources in confronting this growing threat on our southern border?
    Mr. Panetta. U.S.-Mexico relations have grown significantly in 
recent years. The increased military-to-military engagement between our 
two nations is especially valued. DOD is working closely with 
interagency partners to provide support and deliver assistance, as 
requested by the Government of Mexico. As I understand it, DOD 
representatives meet and speak regularly with Government of Mexico 
officials to assess the progress we have made to date, and to identify 
priorities moving forward through established forums such as the U.S.-
Mexico Defense Bilateral Working Group and other ongoing meetings with 
Government of Mexico officials. As the force directly confronting the 
TCOs, the Government of Mexico is best positioned to identify the 
resources and support needed to challenge the organizations operating 
in Mexican territory. The most important step DOD can take is to be 
prepared to respond quickly when assistance is requested. I look 
forward to working closely with U.S. national security agencies, 
Mexico, Central American Governments, and Congress to shape the scope 
and scale of continued DOD efforts.

    161. Senator Cornyn. Mr. Panetta, how would you improve interagency 
cooperation in this area?
    Mr. Panetta. DOD has been engaged with its Mexican counterparts on 
exchanges and training, providing equipment, and information sharing 
for many years. But as I mentioned previously, defense assistance is a 
small part of the U.S. whole-of-government support to Mexico, which 
focuses on building civilian institutions and capacity and for which 
DOD is in complete support.
    I will ensure that DOD continues to work closely with other U.S. 
departments and agencies and foreign partners to integrate our 
cooperation with Mexico. DOD has unique capabilities within the U.S. 
Government, but it must ensure that its policies are complementary 
rather than duplicative, and that those agencies with the right tools 
have a seat at the table. Although the Government of Mexico has called 
upon its armed forces to support Mexican law enforcement efforts in 
combating transnational criminal organizations, as I understand it, 
Mexico continues to see the problem as law enforcement in nature, and 
the U.S. Government agrees with this assessment. In addition to DOD's 
engagement with its Mexican counterparts, if confirmed, I will ensure 
that DOD remains prepared to provide support to U.S. law enforcement 
agencies in their work with Mexico.

                           THE FUTURE OF IRAQ

    162. Senator Cornyn. Mr. Panetta, the recent killing of five 
American soldiers served as a chilling reminder that security in Iraq 
remains fragile. The radical Shiite cleric, Moqtada al-Sadr, is 
attempting to reinsert himself into Iraq's political process through 
demonstrations and threats of violence. Several military and civilian 
leaders have expressed serious concern regarding the Iraqis' limited 
military capabilities in the key areas of logistics, intelligence, and 
aviation, and what those shortfalls will mean for Iraq once U.S. forces 
withdraw as planned, by December 31, 2011. How concerned are you about 
stability in Iraq following the departure of U.S. Armed Forces?
    Mr. Panetta. Although the ISF are currently functioning well as a 
counterinsurgency force and demonstrating the capability to maintain 
internal security, U.S. Forces-Iraq (USF-I) assesses that gaps, 
particularly in the capability to defend against external threats, will 
exist. USF-I assesses that the broad categories of projected gaps are 
cross-ministerial intelligence sharing; combined arms capability; 
integrated air defense and air sovereignty enforcement; and sustainment 
and logistics. USF-I will focus its efforts on these areas between now 
and the end of the mission. Additionally, USF-I will continue to assist 
the Iraqis in the fielding of modernized equipment, providing advice 
during maneuver training, conducting advanced specialty skills 
training, and working to mature maintenance and supply operations.

    163. Senator Cornyn. Mr. Panetta, can the Iraqis adequately prevent 
terrorist organizations from taking root and growing in Iraq?
    Mr. Panetta. [Deleted.]

                                  IRAN

    164. Senator Cornyn. Mr. Panetta, it remains clear that Iran plans 
to influence the future of Iraq. The ongoing Iranian meddling in Iraqi 
affairs is very concerning. In your opinion, how would a complete 
withdrawal of U.S. forces impact Iran's relations with Iraq?
    Mr. Panetta. We remain troubled by Iran's continued support to and 
training of militant groups that target both Iraqi and U.S. personnel. 
We encourage Iran to maintain constructive and peaceful relations with 
its neighbor Iraq, with which it shares a long history of cultural, 
religious, and economic ties. Iran should respect Iraqi sovereignty and 
end its support to those who promote terrorism in Iraq. In addition, 
Iraq is a sovereign country and has proven resistant to Iranian 
meddling.

    165. Senator Cornyn. Mr. Panetta, would this give the Iranians more 
opportunity to influence Iraq's future course?
    Mr. Panetta. Iran has pursued a multi-pronged strategy in Iraq 
consisting of political outreach, soft-power initiatives, and lethal 
support for surrogate groups. Iran often seeks to fill power vacuums, 
real or perceived, in order to gain leverage. It is therefore possible 
that Iran could view the U.S. draw down as an opportunity to gain such 
leverage. However, Iraq is a sovereign country that, in its own 
interest, would be expected to resist efforts by any of its neighbors 
to exert improper influence.

                      INDIA'S ROLE IN AFGHANISTAN

    166. Senator Cornyn. Mr. Panetta, as of February, there was a 
shortage of 740 trainers in Afghanistan needed to train Afghan soldiers 
and police. Last summer, Secretary Gates signed an order sending 850 
military personnel to Afghanistan as a stop-gap measure to fill 
vacancies in the high-priority effort to train local security forces. 
Administration officials continue to reaffirm that the trainers' 
mission is essential for preparing Afghan forces to take over the 
security mission and remains a central tenet of the transition strategy 
in Afghanistan. Meanwhile, India has proven its willingness to support 
the effort in Afghanistan, playing an important role in the ongoing 
reconstruction efforts. To date, India has committed some $1.3 billion 
to this cause, in addition to some 3,500 Indian personnel working on 
relief and reconstruction projects in Afghanistan. Given the clear and 
immediate demand for more trainers and training options in Afghanistan, 
as well as India's willingness to help thus far, should we invite India 
to play a greater role in training the Afghan security forces?
    Mr. Panetta. India provides scholarships for ANSF personnel to 
study in India, and the Indian Government is currently exploring 
options to train Afghan women police in India. We welcome these efforts 
and have encouraged India to coordinate its efforts with the NATO 
Training Mission in Afghanistan (NTM-A).
    We also encourage India to consider further assistance in 
Afghanistan through priority infrastructure projects and additional 
training and education assistance and technical assistance to the 
agriculture sector. As Prime Minister Singh's recent visit to 
Afghanistan illustrated, India continues to work bilaterally with the 
Afghan Government to identify additional areas of cooperation.
    During President Obama's visit to India in November 2010, he and 
Prime Minister Singh committed to intensify consultation, cooperation, 
and coordination to promote a stable, prosperous, and independent 
Afghanistan. They agreed to collaborate closely to assist the people of 
Afghanistan by identifying opportunities to leverage our relative 
strengths, experience, and resources, including joint projects on 
agriculture and women's economic development. Eighty-five percent of 
Afghans derive their income from agriculture, and Afghan women continue 
to lack economic, social, and political opportunities.

                            PERSONNEL COSTS

    167. Senator Cornyn. Mr. Panetta, in your written responses, you 
note that the portion of DOD's budget devoted to personnel-related 
costs continues to grow. You acknowledge that the current military 
compensation system ``remains rooted in structures established 
generations ago,'' and that you ``believe it may be possible to 
restructure our military benefits in a way that reduces costs.'' 
Likewise, Secretary Gates, in his last major policy speech delivered on 
May 24, stated that we may need to consider ``reexamining military 
compensation levels in light of the fact that--apart from the U.S. Army 
during the worst years of Iraq--all the Services have consistently 
exceeded their recruiting and retention goals . . . '' If confirmed, do 
you intend to direct a comprehensive review of military pay and 
benefits?
    Mr. Panetta. The fiscal environment requires us to look at all 
areas to meet the savings target including compensation, but we will 
take care of our personnel and their families, particularly our Wounded 
Warriors whose sacrifices demand that we deliver on our promises.

    168. Senator Cornyn. Mr. Panetta, what overarching changes and 
modifications do you believe are necessary to control rising personnel 
costs, while continuing to adequately provide for servicemembers?
    Mr. Panetta. We need to examine all aspects of compensation in a 
manner that recognizes the unique nature of military life and the need 
to attract and retain needed personnel. While I don't yet have any 
specific proposals, I do recognize the importance of this review.

    169. Senator Cornyn. Mr. Panetta, do you agree with the recent 
recommendation of Admiral Mike Mullen, Chairman of the Joint Chiefs of 
Staff, that when implementing President Obama's call for $400 billion 
in cuts to security spending, savings should be identified within 
military pay and benefits before cuts are made to force structure, such 
as weapons programs, equipment, and end strength?
    Mr. Panetta. I look forward to working with the Chairman of the 
Joint Chiefs of Staff about priorities and potential areas for savings. 
Finding the $400 billion sought by the President will require us to 
make disciplined decisions in a number of areas, and we will need to 
find the right balance between military pay and benefits, weapons 
programs, equipment, and end strength.

                       MILITARY RETIREMENT SYSTEM

    170. Senator Cornyn. Mr. Panetta, your written responses also 
evidenced your concerns regarding the military retirement system, 
including that it was ``created in an earlier era,'' and that it ``may 
be appropriate to also review the military retirement system for needed 
changes and efficiencies.'' Secretary Gates also stated in his May 24 
speech that we currently have a ``one-size-fits-all approach to 
retirement, pay, and pensions left over from the last century.'' He 
went on to say, ``a more tiered and targeted system--one that weighs 
compensation towards the most demand and dangerous specialties--could 
bring down costs while attracting and retaining the high quality 
personnel we need . . . '' If confirmed, do you intend to direct a 
comprehensive review of the military retirement system?
    Mr. Panetta. I expect that, if confirmed, I will need to direct a 
review of all aspects of military compensation including retirement. 
That review needs to recognize the unique nature of military life. If 
retirement changes are proposed, I am committed to grandfathering those 
currently serving.

    171. Senator Cornyn. Mr. Panetta, what overarching changes and 
modifications do you believe are necessary to control rising costs 
while continuing to attract the high-quality personnel we need for our 
national defense?
    Mr. Panetta. Controlling rising costs will require us to make 
disciplined decisions in a number of areas. We will need to find the 
right balance between military pay and benefits, weapons programs, 
equipment and end strength and understand the impact of any pay changes 
on our ability to recruit and retain the future force.

                            MILITARY VOTING

    172. Senator Cornyn. Mr. Panetta, in a letter to me dated December 
16, 2009, Deputy Secretary of Defense William J. Lynn wrote, ``I am 
pleased to inform you that I will designate all military installation 
voting assistance offices as National Voter Registration Act (NVRA) 
agencies . . . Those designations will be advertised to State and local 
election officials, as well as Uniformed Service voters, when 
implemented.'' This action was taken under section 7(a)(2) of the NVRA. 
Please provide a detailed status on the implementation of this 
decision.
    Mr. Panetta. Since July 2010, the Department has accomplished the 
following:

        <bullet> Federal Voting Assistance Program (FVAP) provided an 
        Installation Voter Assistance (IVA) Office Training Handbook 
        including specific step-by-step voting assistance decision 
        trees for both military and civilians entering the IVA office.
        <bullet> In-person training was provided in 36 military 
        concentration areas, and three webinars were conducted to 
        assist installation personnel who were unable to attend the in-
        person training.
        <bullet> The Under Secretary for Personnel & Readiness issued 
        Directive-Type Memorandum 10-021, directing the Services to 
        establish IVA Offices at all military installations.
        <bullet> The Department is completing the revision of DOD 
        Directive 1000.04, FVAP, which includes instructions to the 
        Services for fulfilling all aspects of the Military and 
        Overseas Voter Empowerment Act. This is scheduled for 
        completion later this year.
        <bullet> The Service Senior Voting Representatives report 
        quarterly to the Director, FVAP, on the implementation of IVA 
        Offices and on other voting assistance metrics. The Services 
        expect to have 100 percent Voter Assistance Office and NVRA 
        implementation by the end of fiscal year 2011.

    173. Senator Cornyn. Mr. Panetta, what is your opinion on the 
proper role of DOD in ensuring that our military personnel and their 
families have a meaningful opportunity to vote in Federal elections, 
regardless of whether they are stateside or overseas?
    Mr. Panetta. The role of DOD is to assist uniformed servicemembers, 
their families, and overseas voters to exercise their right to vote.

                           CIA LEGAL EXPENSES

    174. Senator Cornyn. Mr. Panetta, Attorney General Eric Holder 
reopened the investigations of several CIA interrogators in August 
2009, after their cases had been formally closed in 2007 following 
thorough consideration by Federal prosecutors. Has the CIA paid for any 
of the legal expenses incurred by these interrogators as a result of 
these re-investigations? If so, how much Federal funding has the CIA 
spent on these efforts to date?
    Mr. Panetta. The CIA's expenditure of its appropriations for legal 
expenses incurred in connection with investigations of CIA 
interrogators, and the Agency's potential need for additional Federal 
funding for such expenses, are matters beyond this Department's 
purview. Accordingly, I defer to the CIA for response.

    175. Senator Cornyn. Mr. Panetta, how much additional Federal 
funding does the CIA anticipate needing to spend on this?
    Mr. Panetta. The CIA's expenditure of its appropriations for legal 
expenses incurred in connection with investigations of CIA 
interrogators, and the Agency's potential need for additional Federal 
funding for such expenses, are matters beyond this Department's 
purview. Accordingly, I defer to the CIA for response.

                             UNITED KINGDOM

    176. Senator Cornyn. Mr. Panetta, what are the implications of the 
United Kingdom's reductions in military spending for the future of the 
NATO alliance?
    Mr. Panetta. We are concerned about the implications reductions in 
defense expenditure across the Alliance will have on NATO's future 
viability. The Department continues to engage in frank discussions with 
all of our NATO partners, in public and private, regarding the 
challenges associated with declining defense expenditures.
    The United Kingdom faces an austere budget environment coupled with 
an unsustainable defense program that needs to be overhauled. It will 
implement a number of cuts as a result of its Strategic Defense and 
Security Review (SDSR) reducing the size and some of the capabilities 
of its armed forces. Nevertheless, we expect that the United Kingdom 
will maintain its position as a leading NATO partner for the long term.
    Although these are challenging economic times and many countries 
have significant fiscal challenges, all allies will need to find ways 
to spend limited funds more wisely through pooling, specialization, and 
multinational procurement. Although not a panacea, these practices 
should help our NATO allies to get more capability out of their defense 
investment.

    177. Senator Cornyn. Mr. Panetta, are there any lessons from the 
United Kingdom's reductions that can be applied to the current U.S. 
debate about defense spending reductions?
    Mr. Panetta. Yes. The United Kingdom undertook a SDSR last year to 
tackle the very difficult problem of an austere fiscal environment and 
a defense program that was overspent, overstretched, and in need of new 
strategic direction. It is important to note that, even after the SDSR, 
the United Kingdom was able to maintain 2 percent of GDP expenditure on 
its military, sustain its commitment to NATO operations in Afghanistan, 
and respond to the situation in Libya as a leading partner in the 
effort.
    Our own defense establishment must also address an increasingly 
austere budgeting environment, a complex set of security challenges, 
and an uncertain future. We are consulting with the British on shared 
lessons and experiences as our defense establishments continue to 
explore efficiencies and best practices in our respective defense 
models.

                              F-22 EXPORTS

    178. Senator Cornyn. Mr. Panetta, Air Force Chief of Staff General 
Norton Schwartz has previously indicated that having a fleet of only 
187 F-22 fighters creates a high risk for the U.S. military in meeting 
its operational demands. Given China's development of a stealth 
aircraft and Russia's development and export of air defense systems, 
the F-22 Raptor has taken on even greater importance. If confirmed, 
will you consider creating an export variant of the F-22 for sale to 
allied air forces?
    Mr. Panetta. I will review the F-22 program, along with my planned 
review of all of the Department's major weapons systems. However, it is 
my understanding that export versions of U.S.-made weapons systems are 
the result of interest from foreign countries through Foreign Military 
Sales (FMS) requests. At this time I am not aware of any official 
requests for F-22 FMS.

                 WEAPON SYSTEM CODEVELOPMENT WITH INDIA

    179. Senator Cornyn. Mr. Panetta, there are eight partner nations 
committed to the development and production of the F-35 Joint Strike 
Fighter. These partnerships are the source of extra investment for 
development of the aircraft, help drive down per-unit cost, and support 
the industrial base through foreign military sales. I believe there is 
potential for the United States and our strategic partner India to co-
develop one or more military weapon systems, such as the replacement 
aircraft for the Air Force's 40-year old T-38 trainer aircraft. Co-
development of a trainer jet would also expand the opportunities for 
U.S. Air Force pilots and Indian Air Force pilots to train side-by-
side, which would be of great value. Do you agree that co-developing a 
weapon system with India would be in both our strategic and fiscal 
interest? Do you support this idea?
    Mr. Panetta. The Department accrues significant benefit from 
cooperative research and development projects with our NATO partners 
and friendly foreign nations. 10 U.S.C. 2350a requires our acquisition 
community to provide an assessment of cooperative opportunities prior 
to the first acquisition milestone or decision point. I agree that co-
development is in both our strategic and fiscal interest and support 
the idea. If an opportunity for co-development with India were to 
arise, we would certainly pursue it if practically feasible.

    180. Senator Cornyn. Mr. Panetta, what other future programs would 
be good candidates for DOD to embark on similar joint development 
efforts with India?
    Mr. Panetta. The Department identifies assessment of cooperative 
opportunities for co-development at or before the first acquisition 
milestone or decision point. During that analysis we identify good 
candidates for joint development. I do not, at this point, know of any 
specific candidates identified for co-development programs with India, 
although there is an ongoing cooperative research and development 
engagement with India.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                    IRAN NUCLEAR WEAPONS CAPABILITY

    181. Senator Vitter. Mr. Panetta, Iran continues to maintain a 
rapid pace in its progress towards a nuclear weapons capability. The 
International Atomic Energy Agency continues to report that Iran 
conducts illicit nuclear activity. Iran's missile program also shows 
progress towards a nuclear weapons capability that demonstrates 
prospective increases in proficiency and range. In fact, Iran has 
already enriched a sufficient quantity of uranium to produce multiple 
nuclear warheads if it further enriched that material to weapons-grade 
level. In response, the United States and our allies have imposed 
significant sanctions on Iran, with the hopes that these steps will 
press Tehran to change course. Do you agree that the prospect of a 
nuclear-armed Iran and the persistent threat posed by Iran's proxies, 
Hamas and Hezbollah, demonstrate the need for the missile defense 
systems being developed by the United States and its allies?
    Mr. Panetta. Yes, the ballistic missile threat from Iran and its 
continued defiance of international obligations regarding its nuclear 
program demonstrate the need for the development and deployment of 
missile defenses for the protection of the United States, as well as 
our deployed forces, allies, and partners.

    182. Senator Vitter. Mr. Panetta, do you agree that Iran's pursuit 
of nuclear weapons poses an unacceptable risk to the United States?
    Mr. Panetta. We remain committed to preventing Iran from acquiring 
a nuclear weapon. The consequences of a nuclear-armed Iran would be 
highly destabilizing for the Middle East, and could have significant 
implications for U.S. interests. No one can say with certainty how the 
situation might unfold, but a nuclear-armed Iran could cause other 
states in the Middle East to pursue nuclear programs. It could also 
embolden Iran in its actions throughout the region--most notably by 
expanding its support for proxies. A nuclear-armed Iran could also 
cause strategic instability that could eventually lead to a regional 
conflict.

    183. Senator Vitter. Mr. Panetta, do you agree with the President 
that all options must be on the table to address Iran's illicit 
activities?
    Mr. Panetta. Yes, I agree with the President that all options 
should remain on the table to address Iran's illicit activities. It is 
DOD's responsibility to plan for all contingencies, and through prudent 
military planning we continue to refine options to protect U.S. and 
partner interests from Iranian aggression. However, we continue to 
believe that diplomacy and economic pressure are the most effective 
tools for changing Iranian behavior at this time.

    184. Senator Vitter. Mr. Panetta, if confirmed, will you ensure DOD 
is prepared to carry out any orders the President may give to address 
the threat of an Iranian nuclear weapon?
    Mr. Panetta. It is DOD's responsibility to plan for all 
contingencies, and through prudent military planning we continue to 
refine options to protect U.S. and partner interests from Iranian 
aggression. However, we continue to believe that diplomacy and economic 
pressure are the most effective tools for changing Iranian behavior and 
achieving our objectives. I will continue to ensure the Department is 
prepared to carry out any orders given by the Commander in Chief.

                    MILITARY PERSONNEL LOANS/CREDIT

    185. Senator Vitter. Mr. Panetta, I would like to raise an issue 
regarding lending to military personnel that has come to my attention 
and which I find very concerning. The North Carolina legislature is 
considering legislation (HB 810) that would increase interest rates 
charged by installment finance lenders. DOD has clearly defined 
regulations governing lending to military personnel (32 CFR Part 232) 
which imposes a 36 percent rate cap on short-term loans which do not 
amortize. Yet, during a hearing military officers testified against the 
bill indicating that the Office of Secretary of Defense ``found the 
bill objectionable.''
    Further, when Congress passed the Wall Street Reform Act, despite 
the opportunity to do so, DOD did not recommend any changes to the 
statute governing these regulations nor did Congress enact any changes.
    When DOD reviewed and considered the regulation in place that 
imposes a 36 percent rate cap on short-term payday loans which do not 
amortize, it found that amortizing installment loans should not be 
covered by the regulation.
    72 Federal Register 5058 (August 31, 2007), at page 50582, reads: 
``Likewise, there are installment loans with favorable terms and some 
with terms that can increase the interest rate well beyond the limits 
prescribed by 10 U.S.C. 987. Isolating detrimental credit products 
without impeding the availability of favorable installment loans was of 
central concern in developing the regulation. Consequently, installment 
loans that do not fit the definition of `consumer credit' in section 
232.3(b), including the definition of `payday loans,' `vehicle loans,' 
or `tax refund anticipation loans' are not covered by the regulation. 
The Department's intent is to balance protections with access to 
credit. The protections posed in the statute assist servicemembers, 
when applied with precision to preclude unintended barriers.''
    However, I have seen reports of local commanders and civilian 
representatives of DOD advocating at the State level against the very 
types of loan instruments that DOD's own regulations call a favorable 
form of credit for servicemembers and their families.
    I am very concerned about continued credit availability to military 
families. Has DOD changed its policy to include other lenders within 
the coverage of the regulation?
    Mr. Panetta. No, DOD has not changed its policy and does not intend 
at this time to include other lenders within the coverage of the 
regulation. The Department proposes to help ensure that servicemembers 
and their families receive fair protections by working with Federal and 
State governments on existing and proposed policies impacting all 
consumers. The goal is to try to eliminate the need to identify 
servicemembers and their families separately for protections, which may 
create unintentional barriers to credit.

    186. Senator Vitter. Mr. Panetta, has there been any study finding 
abuse in this area?
    Mr. Panetta. There have been no DOD-directed studies of installment 
lending practices.

    187. Senator Vitter. Mr. Panetta, is it still the position of DOD 
to balance consumer protection while preventing unintended barriers to 
obtaining credit?
    Mr. Panetta. Yes, this is still DOD's position. The Department 
proposes to help ensure that servicemembers and their families receive 
fair protections by working with Federal and State governments on 
existing and proposed policies impacting all consumers. The goal is to 
try to eliminate the need to identify servicemembers and their families 
separately for protections, which may create unintentional barriers to 
credit.
                                 ______
                                 
    [The nomination reference of Hon. Leon E. Panetta follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 26, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Leon E. Panetta, of California, to be Secretary of Defense, vice 
Robert M. Gates.
                                 ______
                                 
    [The biographical sketch of Hon. Leon E. Panetta, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
            Resume of Career Service of Hon. Leon E. Panetta
Education:
        <bullet> Santa Clara University, 1956-1960

                <bullet> Bachelor of Arts Degree in Political Science 
                awarded 1960

        <bullet> Santa Clara University School of Law 1960-1963

        <bullet> Juris Doctor Law Degree awarded in 1963
Employment Record:

    The following are positions for which I received compensation:

        <bullet> Central Intelligence Agency

                <bullet> Director
                <bullet> 2009-present

        <bullet> Santa Clara University

                <bullet> Presidential Professor
                <bullet> 1999-2009

        <bullet> California State University Office of the Chancellor

                <bullet> Distinguished Scholar
                <bullet> 1997-2009

        <bullet> Joint Ocean Commission Initiative

                <bullet> Commissioner and Co-Chair (compensation from 
                Meridian Institute)
                <bullet> 1996-2009.

        <bullet> Meridian Institute .

                <bullet> Board of Directors (no compensation) Member, 
                Policy Planning Staff
                <bullet> 2008-2009

        <bullet> Blue Shield of California

                <bullet> Director
                <bullet> 2001-2009

        <bullet> International Advisory Board, Fleischman-Hillard,

                <bullet> Member
                <bullet> 1998-2009

        <bullet> Corinthian Colleges Inc.

                <bullet> Director
                <bullet> 2008-2009

        <bullet> BP Corp. North America, Inc.

                <bullet> Member of Advisory Board
                <bullet> 2005-2009

        <bullet> Zenith Insurance Company

                <bullet> Director
                <bullet> 2000-2009

        <bullet> California Forward

                <bullet> Co-Chair
                <bullet> 2007-2009

        <bullet> Inns of Monterey LTD & Inns of Cannery Rd LTD

                <bullet> Director
                <bullet> 2003-2009

        <bullet> Pacific Maritime Association

                <bullet> Governmental Advisor
                <bullet> 1998-2009

        <bullet> IDT Corp.

                <bullet> Director
                <bullet> 2004-2006

        <bullet> Connetics Corp. (Stiefel Laboratories)

                <bullet> Director
                <bullet> 2000-2006

        <bullet> New York Stock Exchange

                <bullet> Director
                <bullet> 1997-2003

        <bullet> New York Stock Exchange

                <bullet> Co-chairman, Corporate Accountability and 
                Listing Standards Committee
                <bullet> 2002-2003

    The following are uncompensated positions in which I have served, 
although in some cases I was compensated for my necessary expenses 
associated with my work in the organization:

        <bullet> Leon & Sylvia Panetta Institute for Public Policy

                <bullet> Founder and Co-Director
                <bullet> 1998-2009

        <bullet> Pew Oceans Commission

                <bullet> Chairman (2000-2003)
                <bullet> Commissioner (2003-2006)

        <bullet> Bread for the World
                <bullet> Director
                <bullet> 2001-2009

        <bullet> National Marine Sanctuary Foundation
                <bullet> Director
                <bullet> 2004-2009

        <bullet> Close Up Foundation
                <bullet> Director
                <bullet> 1999-2009

        <bullet> Junior Statesmen Foundation, Inc.
                <bullet> Trustee
                <bullet> 2003-2009

        <bullet> Public Policy Institute of California
                <bullet> Director
                <bullet> 2005-2009

        <bullet> National Review Board, U.S. Conference of Catholic 
        Bishops
                <bullet> Member
                <bullet> 2002-2004

        <bullet> National Steinbeck Center
                <bullet> Director
                <bullet> 1998-2001

        <bullet> U.C. Santa Cruz Foundation
                <bullet> Director
                <bullet> 1998-2001

        <bullet> Santa Clara University Law School Board of Visitors
                <bullet> Member
                <bullet> 1998-2009

        <bullet> Santa Clara University Board of Trustees
                <bullet> Member
                <bullet> 2000-2009

        <bullet> Community Hospital of the Monterey Peninsula

                <bullet> Trustee
                <bullet> 2000-2007

        <bullet> Center for National Policy

                <bullet> Chairman of the Board
                <bullet> 1999-2003

        <bullet> Power Up

                <bullet> Director
                <bullet> 1999-2000

        <bullet> Independent Task Force on Immigration and America's 
        Future

                <bullet> Member
                <bullet> 2005-2007

        <bullet> Monterey Bay Aquarium

                <bullet> Director
                <bullet> 2004-2008

        <bullet> National Leadership Roundtable on Church Management

                <bullet> Director
                <bullet> 2005-2009

        <bullet> Citizens Advisory Group of the Panel on the Nonprofit 
        Sector

                <bullet> Member
                <bullet> 2005

        <bullet> National Advisory Council for Aspen Rodel Fellowship 
        Program, Aspen Institute

                <bullet> Member
                <bullet> 2005-2009

        <bullet> Aspen Security Group, Aspen Institute

                <bullet> Member
                <bullet> 2008-2009

        <bullet> Marks Ranch Advisory Committee, Big Sur Land Trust

                <bullet> Co-Chair
                <bullet> 2005-2007

        <bullet> Bretton Woods Committee

                <bullet> Member
                <bullet> 2001-2009

        <bullet> California Foundation on the Environment and the 
        Economy

                <bullet> Director
                <bullet> 2000-2009

        <bullet> National Advisory Committee, Campaign for the Civic 
        Mission of Schools

                <bullet> Trustee
                <bullet> 2008-2009

        <bullet> Caring Institute

                <bullet> Honorary Trustee
                <bullet> 2001-2009

        <bullet> Center for the Study of the Presidency

                <bullet> Member, Strengthening America's Future 
                Initiative Steering Committee
                <bullet> Member, National Commission to Unite a Divided 
                America
                <bullet> Trustee
                <bullet> 2008-2009

        <bullet> Children's Neurobiological Solutions Foundation

                <bullet> Member, Board of Advisors
                <bullet> 2001-2009

        <bullet> Committee for a Responsible Federal Budget

                <bullet> Trustee
                <bullet> 2000-2009

        <bullet> Making Washington Work Committee, Committee for 
        Economic Development

                <bullet> Member
                <bullet> 2006-2009

        <bullet> National Advisory Board, Commission on the Future of 
        America's Veterans

                <bullet> Member
                <bullet> 2006-2009

        <bullet> Committee on the Constitutional System

                <bullet> Co-Chair
                <bullet> 1999-2009

        <bullet> Leadership Council, Competitive Clusters

                <bullet> Member
                <bullet> 2003-2009

        <bullet> Consortium for Ocean Leadership

                <bullet> Trustee
                <bullet> 2008-2009

        <bullet> Council for Excellence in Government

                <bullet> Principal
                <bullet> 2000-2009

        <bullet> Friends of Long Marine Lab

                <bullet> Honorary Director
                <bullet> 2006-2009

        <bullet> Heartland Democracy Center

                <bullet> Selected Advisor
                <bullet> 2007-2009

        <bullet> Meridian Institute

                <bullet> Director
                <bullet> 2008-2009

        <bullet> National Commission on Federal Reform

                <bullet> Member
                <bullet> 2001

        <bullet> Next Ten

                <bullet> Senior Advisor
                <bullet> 2003-2009

        <bullet> Ocean Champions

                <bullet> Advisory Committee
                <bullet> 2003-2009

        <bullet> Advisory Board of Governors, Partnership for Public 
        Service

                <bullet> Member
                <bullet> 2004-2009

    In addition to the compensated activities mentioned above, prior to 
my confirmation as Director of the Central Intelligence Agency, I had 
conducted much of my pre-2009 independent writing (such as my column in 
the Monterey Herald), speaking (including my Washington Speakers Bureau 
work), and other professional business through Panetta & Associates, an 
unincorporated sole proprietorship. I received no salary from Panetta & 
Associates, but I did receive through it compensation for writing and 
speaking.
Honors and Awards:

        <bullet> Army Commendation Medal, 1966
        <bullet> NEA Lincoln Award, 1969
        <bullet> A. Philip Randolph Award, 1984
        <bullet> The Farm Bureau's Golden Plow Award, 1991
        <bullet> The American Council on the Teaching of Foreign 
        Languages President's Award, 1991
        <bullet> The Peter Burnett Award for Distinguished Public 
        Service, 1993
        <bullet> The Distinguished Public Service Medal from the Center 
        for the Study of the Presidency, 1995
        <bullet> The Special Achievement Award for Public Service from 
        the National Italian American Foundation, 1997
        <bullet> John H. Chafee Costal Stewardship Award, 2001
        <bullet> Special Achievement Award, Santa Clara University 
        School of Law Alumni Association, 2002
        <bullet> Julius A. Stratton Award for Coastal Leadership, 2003
        <bullet> Exemplary Leadership Award from the American 
        Leadership Forum, Silicon Valley, 2004
        <bullet> Aquarium of the Pacific Ocean Conservation Award, 2006
        <bullet> Lifetime Achievement Award for the National Marine 
        Sanctuary Foundation, 2006
        <bullet> Smithsonian Institution National Portrait Gallery Paul 
        Peck Presidential Award, 2006
        <bullet> Natural Resources Defense Council Forces for Nature 
        Award, 2007
        <bullet> National Hospice Foundation Silver Anniversary 
        Honoree, 2007
        <bullet> Lifetime of Service Award, City Year Silicon Valley, 
        2007
        <bullet> Distinguished Public Service Award, Association of 
        Jesuit Colleges and Universities, 2007
        <bullet> The Santa Clara University School of Law Social 
        Justice and Human Rights Award, 2008
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Hon. 
Leon E. Panetta in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Leon Edward Panetta.

    2. Position to which nominated:
    Secretary of Defense.

    3. Date of nomination:
    May 26, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 28, 1938; Monterey, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sylvia (Varni) Panetta.

    7. Names and ages of children:
    Christopher Panetta, age 48.
    Carmelo Panetta, age 46.
    James Panetta, age 41.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Monterey High School, 1952-1956, diploma.
    Santa Clara University, 1956-1960, BA in Political Science, 1960.
    Santa Clara University, 1960-1963, JD, 1963.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    The following are positions for which I received compensation. Note 
that the dates are my best recollection.

        <bullet> Director, Central Intelligence Agency, McLean VA, 
        2009-present
        <bullet> Presidential Professor, Santa Clara University, Santa 
        Clara, CA, 1999-2009
        <bullet> Distinguished Scholar, California State University 
        Office of the Chancellor, Monterey CA, 1997-2009
        <bullet> Commissioner and Co-Chair, Joint Ocean Commission 
        Initiative, 1996-2009 (compensation from Meridian Institute)
        <bullet> Director, Blue Shield of California, San Francisco CA, 
        2001-2009
        <bullet> Member, International Advisory Board, Fleischman-
        Hillard, 1998-2009
        <bullet> Director, Corinthian Colleges Inc., Santa Ana, CA, 
        2008-2009
        <bullet> Member of Advisory Board, BP Corp. North America, 
        Inc., Warrenville IL, 2005-2009
        <bullet> Director, Zenith Insurance Company, Woodland Hills CA, 
        2000-2009
        <bullet> Co-Chair, California Forward, Sacramento CA, 2007-2009
        <bullet> Director, Inns of Monterey LTD & Inns of Cannery Rd 
        LTD, Monterey CA, 2003-2009
        <bullet> Governmental Advisor, Pacific Maritime Association, 
        San Francisco CA, 1998-2009
        <bullet> Director, IDT Corp., Newark, NJ, 2004-2006
        <bullet> Director, Connetics Corp. (Stiefel Laboratories), 
        Research Triangle Park, NC, 2000-2006
        <bullet> Director, New York Stock Exchange, New York, NY, 1997-
        2003
        <bullet> Co-chairman, Corporate Accountability and Listing 
        Standards Committee, New York Stock Exchange, New York, NY, 
        2002-2003

    The following are uncompensated positions in which I have served, 
although in some cases I was compensated for my necessary expenses 
associated with my work in the organization. Dates are to the best of 
my recollection.

        <bullet> Leon & Sylvia Panetta Institute for Public Policy, 
        Founder and Co-Director, 1998-2009
        <bullet> Pew Oceans Commission, Chairman (2000-2003) and 
        Commissioner (2003-2006)
        <bullet> Director, Bread for the World, 2001-2009
        <bullet> Director, National Marine Sanctuary Foundation, 2004-
        2009
        <bullet> Director, Close-Up Foundation, 1999-2009
        <bullet> Trustee, Junior Statesmen Foundation, Inc., 2003-2009
        <bullet> Director, Public Policy Institute of California, 2005-
        2009
        <bullet> Member, National Review Board, U.S. Conference of 
        Catholic Bishops, 2002-2004
        <bullet> Director, National Steinbeck Center, 1998-2001
        <bullet> Director, U.C. Santa Cruz Foundation, 1998-2001
        <bullet> Member, Santa Clara University Law School Board of 
        Visitors, 1998-2009
        <bullet> Member, Santa Clara University Board of Trustees, 
        2000-2009
        <bullet> Trustee, Community Hospital of the Monterey Peninsula, 
        2000-2007
        <bullet> Chairman of the Board, Center for National Policy, 
        1999-2003
        <bullet> Director, Power Up, 1999-2000
        <bullet> Member, Independent Task Force on Immigration and 
        America's Future, 2005-2007
        <bullet> Director, Monterey Bay Aquarium, 2004-2008
        <bullet> Director, National Leadership Roundtable on Church 
        Management, 2005-2009
        <bullet> Member, Citizens Advisory Group of the Panel on the 
        Nonprofit Sector, 2005
        <bullet> Member, National Advisory Council for Aspen Rodel 
        Fellowship Program, Aspen Institute, 2005-2009
        <bullet> Member, Aspen Security Group, Aspen Institute, 2008-
        2009
        <bullet> Co-Chair, Marks Ranch Advisory Committee, Big Sur Land 
        Trust, 2005-2007
        <bullet> Member, Bretton Woods Committee, 2001-2009
        <bullet> Director, California Foundation on the Environment and 
        the Economy, 2000-2009
        <bullet> Trustee, National Advisory Committee, Campaign for the 
        Civic Mission of Schools, 2008-2009
        <bullet> Honorary Trustee, Caring Institute, 2001-2009
        <bullet> Member, Strengthening America's Future Initiative 
        Steering Committee; Member, National Commission to Unite a 
        Divided America; and Trustee, Center for the Study of the 
        Presidency, 2008-2009
        <bullet> Member, Board of Advisors, Children's Neurobiological 
        Solutions Foundation, 2001-2009
        <bullet> Trustee, Committee for a Responsible Federal Budget, 
        2000-2009
        <bullet> Member, Making Washington Work Committee, Committee 
        for Economic Development, 2006-2009
        <bullet> Member, National Advisory Board, Commission on the 
        Future of America's Veterans, 2006-2009
        <bullet> Co-Chair, Committee on the Constitutional System, 
        1999-2009
        <bullet> Member, Leadership Council, Competitive Clusters, 
        2003-2009
        <bullet> Trustee, Consortium for Ocean Leadership, 2008-2009
        <bullet> Principal, Council for Excellence in Government, 2000-
        2009
        <bullet> Honorary Director, Friends of Long Marine Lab, 2006-
        2009
        <bullet> Selected Advisor, Heartland Democracy Center, 2007-
        2009
        <bullet> Director, Meridian Institute, 2008-2009
        <bullet> Member, National Commission on Federal Reform, 2001
        <bullet> Senior Advisor, Next Ten, 2003-2009
        <bullet> Advisory Committee, Ocean Champions, 2003-2009
        <bullet> Member, Advisory Board of Governors, Partnership for 
        Public Service, 2004-2009

    In addition to the activities mentioned above, prior to my 
confirmation as Director of the Central Intelligence Agency, I had 
conducted much of my pre-2009 independent writing (such as my column in 
the Monterey Herald), speaking (including my Washington Speakers Bureau 
work), and other professional business through Panetta & Associates, an 
unincorporated sole proprietorship. I received no salary from Panetta & 
Associates, but I did receive through it compensation for writing and 
speaking and I paid my wife, Sylvia, a salary as its single employee. 
Note that Panetta & Associates, the sole proprietorship through which 
my wife used to receive a salary, is a different entity from The 
Panetta Institute, where she currently serves as the Director in an 
unpaid capacity (see Part B, Question 5).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.

        <bullet> Iraq Study Group, 2006
        <bullet> Co-chair, Council on Base Support and Retention, 
        Office of the Governor of California, 2004-2005
        <bullet> Chief of Staff, The White House, 1994-1997
        <bullet> Director, Office of Management and Budget, 1993-1994
        <bullet> Member of Congress, U.S. House of Representatives, 
        1977-1993
        <bullet> Executive Assistant, Mayor of New York City, 1970-1971
        <bullet> Director, U.S. Department of Health, Education, and 
        Welfare (HEW) Office of Civil Rights, 1969-1970
        <bullet> Special Assistant to Secretary, U.S. HEW, 1969
        <bullet> Legislative Assistant, U.S. Senator Thomas Kuchel, 
        1966-1969
        <bullet> Officer, U.S. Army, 1964-1966

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    I resigned from all previously held positions upon becoming 
Director of the Central Intelligence Agency.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None other than my regular attendance at the Our Lady of Mount 
Carmel Catholic Church in Carmel Valley, CA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I successfully ran for the U.S. House of Representatives in 
California every 2 years from 1976 to 1992, in the 16th (1976-1990) and 
the 17th (1992) congressional districts.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    I have been a member of the Democratic Party for many years.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    I have contributed to Democratic candidates over the years. Below 
is what has been identified from my recollection and records, as well 
as from a search of internet databases. Despite my searches, there may 
be other contributions I have been unable to identify, find or 
remember.
Federal:
    McCloskey for Congress, $250, 5/12/2006
    Murtha for Congress Committee, $500, 5/15/2006; $1,000, 3/16/2007; 
$250, 2/21/2008
    America's Opportunity Fund, $250, 10/11/2007
    Hillary Clinton for President, $1,000, 11/28/2007; $1,000, 3/14/
2007; $1,000, 4/30/2008
    Larocco for Senate, $250, 6/26/2007; $500, 10/16/2008; $250, 2/20/
2008
    Slattery for Senate, $1,000, 6/29/2008
    Matsui for Congress, $250, 8/7/2008
    Obama for America, $2,300, 10/24/2008
    Spratt for Congress Committee, $500, 6/27/2006
    DCCC, $250, 10/31/2006
    DNC, $2,300, 10/20/2008
State:
    Anna Caballero for Assembly, $100, 3/21/2006; $250, 11/3/2008; 
$200, 2/26/2008

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    During my tenure as Director of the Central Intelligence Agency, I 
have been privileged to receive recognition from various organizations 
and foreign governments in the course of my official duties.
    As a Member of Congress, executive branch official in the Nixon and 
Clinton administrations, and as a public figure since leaving 
government, I am honored to have received more awards and other 
recognitions from civic organizations than I can recall. Examples that 
we found while searching my files prior to my confirmation as Director 
of the Central Intelligence Agency included:

        <bullet> Army Commendation Medal, 1966
        <bullet> NEA Lincoln Award, 1969
        <bullet> A. Philip Randolph Award, 1984
        <bullet> The Farm Bureau's Golden Plow Award, 1991
        <bullet> The American Council on the Teaching of Foreign 
        Languages President's Award, 1991
        <bullet> The Peter Burnett Award for Distinguished Public 
        Service, 1993
        <bullet> The Distinguished Public Service Medal from the Center 
        for the Study of the Presidency, 1995
        <bullet> The Special Achievement Award for Public Service from 
        the National Italian American Foundation, 1997
        <bullet> John H. Chafee Coastal Stewardship Award, 2001
        <bullet> Special Achievement Award, Santa Clara University 
        School of Law Alumni Association, 2002
        <bullet> Julius A. Stratton Award for Coastal Leadership, 2003
        <bullet> Exemplary Leadership Award from the American 
        Leadership Forum, Silicon Valley, 2004
        <bullet> Aquarium of the Pacific Ocean Conservation Award, 2006
        <bullet> Lifetime Achievement Award for the National Marine 
        Sanctuary Foundation, 2006
        <bullet> Smithsonian Institution National Portrait Gallery Paul 
        Peck Presidential Award, 2006
        <bullet> Natural Resources Defense Council Forces for Nature 
        Award, 2007
        <bullet> National Hospice Foundation Silver Anniversary 
        Honoree, 2007
        <bullet> Lifetime of Service Award, City Year Silicon Valley, 
        2007
        <bullet> Distinguished Public Service Award, Association of 
        Jesuit Colleges and Universities, 2007
        <bullet> The Santa Clara University School of Law Social 
        Justice and Human Rights Award, 2008

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    In my official capacity as Director of the CIA, I have written 
multiple messages to my workforce, some of which have been made 
available on the cia.gov website and have been picked up by the press. 
Additionally, in that same official capacity, I have written two op-ed 
pieces:

        <bullet> Congress and the CIA: Time to Move On, Leon Panetta, 
        Washington Post, 2 August 2009, Page A17.
        <bullet> The CIA is Proud to Be on the Front Lines against al 
        Qaeda, Leon Panetta, Washington Post, 10 January 2010, Page 
        A13.

    I wrote one book, Bring Us Together: The Nixon Team and the Civil 
Rights Retreat (1971).
    As a Member of Congress and executive branch official in past 
administrations, I authored many articles, reports, and pieces of 
legislation--too many to list or recall.
    The following are items published between my departure from the 
White House in 1997 and my arrival at the CIA in 2009, to the best of 
my recollection.
Commission Reports
        <bullet> Iraq Study Group--As a member of the Study Group, I 
        participated in the drafting of its final report in 2006, 
        available at http://www.usip.org/isg/iraq--study--group--
        report/report/1206/index.html
        <bullet> Task Force on Immigration and America's Future--As a 
        member of this commission, I participated in preparation of a 
        2006 report, available at http://www.migrationpolicy.org/
        ITFIAF/index.php.
        <bullet> Pew Oceans Commission--I chaired the Commission, which 
        released its report America's Living Oceans: Charting a Course 
        for Sea Change in May 2003, available at http://
        www.pewtrust.org/uploadedFiles/wwwpewtrustsorg/Reports/
        Protecting--ocean--life/env--pew--oceans--final--report.pdf.
        <bullet> National Review Board for the Protection of Children 
        and Young People of the United States Conference of Catholic 
        Bishops--The board, on which I served, released a number of 
        studies, most notably The Nature and Scope of the Problem of 
        Sexual Abuse of Minors by Catholic Priests and Deacons in the 
        United States, March 2004, available at http://www.usccb.org/
        nrb/nrbstudy/nrbstudyhtml.htm.org.
        <bullet> New York Stock Exchange Corporate Accountability and 
        Listing Standards Committee--I co-chaired this committee, which 
        released a report in June 2002, available at http://
        www.nyse.com/pdfs/corp--govreport.pdf.
Book Chapters
        <bullet> ``The Politics of the Federal Budget Process,'' 
        chapter in James A. Thurber, ed., Rivals for Power: 
        Presidential-Congressional Relations, 2002 and 2005 editions.
Articles and Essays
  2009
        <bullet> Governance, Budgeting Require Full Overhauls--and We 
        Can Do It, The Sacramento Bee, January 4, 2009
  2008
        <bullet> Obama's Ultimate Legacy Will Be Forged on Capitol 
        Hill, Roll Call, January 20, 2008
        <bullet> Beyond Winning, The Ability To Govern, The San 
        Francisco Chronicle, November 9, 2008
        <bullet> Obama Faces Challenges of Change, The Monterey County 
        Herald, November 9, 2008
        <bullet> Who Bails Out The U.S. Government?, The Christian 
        Science Monitor, November 5, 2008
        <bullet> What Binds America Is Values In Our Constitution, The 
        San Francisco Chronicle, September 17, 2008
        <bullet> Five Points for the Next President, The Monterey 
        County Herald, September 7, 2008
        <bullet> Protect Our Oceans, San Jose Mercury News, August 30, 
        2008
        <bullet> Nonprofits Are the American Dream, Commonfund, Summer 
        2008
        <bullet> Protecting the Jersey Shore Together, New Jersey 
        Times, June 25, 2008
        <bullet> If Leaders Can't Lead, the People Must, The Monterey 
        County Herald, July 13, 2008
        <bullet> State Budget Process Crippled By Chronic 
        Shortsightedness, The Sacramento Bee, June 22, 2008
        <bullet> How Democrats Could Blow the Election, The Monterey 
        County Herald, May 11, 2008
        <bullet> Americans Reject Scare Tactics, The Monterey County 
        Herald, March 9, 2008
        <bullet> No Torture, No Exceptions, Washington Monthly, 
        February 18, 2008
        <bullet> We Need Real Change Not Campaign Talk, The Monterey 
        County Herald, January 13, 2008
        <bullet> Room for Improvement in Our Waters, The Washington 
        Post, January 7, 2008
  2007
        <bullet> In Support of the Law of the Sea, The Washington 
        Times, December 19, 2007
        <bullet> Bringing Order to the Ocean, Boston Globe, November 
        18, 2007
        <bullet> What's Missing in '08 Run--Candidates' Core Beliefs 
        Buried in Campaign Rhetoric, The Monterey County Herald, 
        November 11, 2007
        <bullet> ``Surge'' Not Working as Hoped, The Monterey County 
        Herald, September 9, 2007
        <bullet> An Empire in Decline, The Monterey County Herald, July 
        18, 2007
        <bullet> Preserving the Ocean For Our Children, The Good Times, 
        June 19, 2007
        <bullet> Consensus on Iraq Exists--Build on It, The Monterey 
        County Herald, May 13, 2007
        <bullet> A Renaissance in Ocean Science, Sea Technology 
        Magazine, April, 1, 2007
        <bullet> Government a Plague of Incompetence, The Monterey 
        County Herald, March 11, 2007
        <bullet> What About Those Other Iraq Deadlines?, The New York 
        Times, April 14, 2007
        <bullet> States' Map For Saving The Oceans, The Washington 
        Post, February 3, 2007
        <bullet> The Wrong Message To Iraq, The Monterey County Herald, 
        January 14, 2007
  2006
        <bullet> A Last Chance for Consensus on Iraq, The Monterey 
        County Herald, December 17, 2006
        <bullet> The Iraq Study Group Report: The Way Forward--A New 
        Approach, December 6, 2006
        <bullet> Iraq Clock Ticking, the Monterey County Herald, 
        December 6, 2006
        <bullet> We Won. Now What?, The New York Times, November 12, 
        2006
        <bullet> Now Parties Must Govern Together, The Monterey County 
        Herald, November 12, 2006
        <bullet> Time For a Budget Summit, The San Francisco Chronicle, 
        November 5, 2006
        <bullet> Facing Reality in Iraq, The Monterey County Herald, 
        September 10, 2006
        <bullet> Doing Justice: The Core of a Jesuit Education, 
        Explore, Fall 2006
        <bullet> Policymakers should look to Californians for 
        decisions, The Monterey County Herald, July 20, 2006
        <bullet> ``A republic . . . if you can keep it'', The Monterey 
        County Herald, July 9, 2006
        <bullet> Price of Gas--Curse or Blessing, The Monterey County 
        Herald, May 7, 2006
        <bullet> Immigration Reform Challenging, The Monterey County 
        Herald, March 12, 2006
        <bullet> Lobby Reform is Overdue in Congress, The Monterey 
        County Herald, January 15, 2006
        <bullet> Immigration and America's Future: A New Chapter, 
        Report of the Independent Task Force on Immigration and 
        America's Future, 2006
  2005
        <bullet> After the Hurricane: What will we learn from Katrina?, 
        The Monterey County Herald, September 11, 2005
        <bullet> Looking for Honesty in Our Leaders, The Monterey 
        County Herald, June 10, 2005
        <bullet> Where is the Battle for Ideas?, The Monterey County 
        Herald, May 8, 2005
        <bullet> California: The Key to Transforming America's 
        Military, The Report of the California Council on Base Support 
        and Retention, April 7, 2005
        <bullet> California is Key to Transformation of Nation's 
        Defense, The San Francisco Chronicle, March 28, 2005
        <bullet> Time for a Party That Can Govern, The Monterey County 
        Herald, March 13, 2005
        <bullet> The Vulnerability of Modern Society, The Monterey 
        County Herald, January 16, 2005
        <bullet> New Commerce Chief Must Protect Collapsing Oceans, The 
        Monterey County Herald, January 12, 2005
  2004
        <bullet> Political Crossroads: Heal or Divide, The Monterey 
        County Herald, November 7, 2004
        <bullet> Healing the Nation, The San Francisco Chronicle, 
        October 25, 2004
        <bullet> Pick a Message, Any Message, The New York Times, 
        September 19, 2004
        <bullet> The Price of Truth, The Monterey County Herald, 
        September 12, 2004
        <bullet> The State of Democracy in America, The Monterey County 
        Herald, July 11, 2004
        <bullet> American Democracy at Risk, The Monterey County 
        Herald, May 9, 2004
        <bullet> Deja vu all Over Again in Washington, The Monterey 
        County Herald, March 7, 2004
        <bullet> A Report On the Crisis in the Catholic Church in the 
        United States, National Review Board for the Protection of 
        Children and Young People, February 27, 2004
        <bullet> Federal Deficit A Nightmare For Our Children, The San 
        Jose Mercury News, February 8, 2004
        <bullet> Talking with Americans, The Globe and Mail (Canada), 
        February 5, 2004
        <bullet> From Athens to Iowa: Let The Games Begin, The Monterey 
        County Herald, January 11, 2004
  2003
        <bullet> Reform Must Follow Recall, The Monterey County Herald, 
        November 16, 2003
        <bullet> Summer of Our Discontent, The Monterey County Herald, 
        September 7, 2003
        <bullet> Saving Our Seas Requires Leadership at Home and 
        Abroad, Ambassador Review, Fall 2003
        <bullet> This is Direct Democracy Run Amok, The Los Angeles 
        Times, July 27, 2003
        <bullet> Mortgaging Our Children's Future, The Monterey County 
        Herald, July 13, 2003
        <bullet> America's Living Oceans--Charting a Course for Sea 
        Change: Summary Report Recommendations for a New Ocean Policy, 
        Pew Oceans Commission, May 2003
        <bullet> The End of Fighting--But What Is Victory?, The 
        Monterey County Herald, May 11, 2003
        <bullet> The Deafening Sound of Silence, The Monterey County 
        Herald, March 9, 2003
        <bullet> The Economy Needs Certainty, Not Stimulus, The 
        Monterey County Herald, January 12, 2003
        <bullet> Lessons Not Learned: California's $35 Billion in Red 
        Ink Calls for Fearless Leaders, The San Jose Mercury News, 
        January 12, 2003
  2002
        <bullet> But Can They Govern?, The Monterey County Herald, 
        November 10, 2002
        <bullet> Did September 11 Really Change America?, The Monterey 
        County Herald, September 1, 2002
        <bullet> Restoring Trust in Corporate America, The Monterey 
        County Herald, July 14, 2002
        <bullet> Washington Turf Wars Take Teeth Away from Ridge's 
        Office, The Monterey County Herald, May 12, 2002
        <bullet> Ocean Dimension of Earth Day, The Washington Times, 
        April 22, 2002
        <bullet> A Time to Ask ``Who Can We Trust?'', The Monterey 
        County Herald, March 10, 2002
        <bullet> Can Congress Discipline Itself?, The New York Times, 
        February 8, 2002
        <bullet> Davis' Budget Has Flaws, but Works, Los Angeles Times, 
        February 5, 2002
        <bullet> Did Sept. 11 Change Washington?, The Monterey County 
        Herald, January 20, 2002
  2001
        <bullet> The Attack on Our Economic Security, Roll Call, 
        December 2001
        <bullet> America Must Not Lose Focus in Its War on Terrorism, 
        The Monterey County Herald, November 11, 2001
        <bullet> The Politics of Geography, The San Jose Mercury News, 
        September 10, 2001
        <bullet> The Price of `Spin' Versus the `Truth', The Monterey 
        County Herald, September 9, 2001
        <bullet> Back to `Borrow and Spend', The Monterey County 
        Herald, July 8, 2001
        <bullet> Reinventing the Energy Wheel, Christian Science 
        Monitor, May 18, 2001
        <bullet> A Nation of All, Not of One?, The Monterey County 
        Herald, May 13, 2001
        <bullet> You Can't Fool All the People All the Time, The 
        Monterey County Herald, March 18, 2001
        <bullet> The Clinton Paradox, The San Jose Mercury News, 
        January 1, 2001
        <bullet> To Succeed As President, Bush Must Learn from Lessons 
        of the Past, The Monterey County Herald, January 1, 2001
        <bullet> To Assure Pride and Confidence in the Electoral 
        Process, Report for the National Commission on Federal Election 
        Reform, 2001
  2000
        <bullet> Time for a Bush-Gore Summit, The New York Times, 
        November 14, 2000
        <bullet> Can He Govern, The Monterey County Herald, November 
        12, 2000
        <bullet> Big Money Undermines Democracy, The San Jose Mercury 
        News, October 15, 2000
        <bullet> Modern Political Conventions are All Script, No Drama, 
        The San Jose Mercury News, July 30, 2000
        <bullet> High Cost of Housing Threatens Economy, The Monterey 
        County Herald, July 9, 2000
        <bullet> A Government By and For All the People, Buon Giornio, 
        June/July 2000
        <bullet> The Initiative Process? Undermining our 
        Representatives, The Monterey County Herald, May 14, 2000
        <bullet> What Went Wrong With Reformers?, The Monterey County 
        Herald, March 12, 2000
        <bullet> The Key to the Last Century is the Key to the Next, 
        The Monterey County Herald, January 9, 2000
  1999
        <bullet> Not a Time for Jokers or Games, The Monterey County 
        Herald, November 14, 1999
        <bullet> Young Bush's Credibility is on the Line, The Monterey 
        County Herald, September 12, 1999
        <bullet> How Congress Was Cornered, The New York Times, October 
        21, 1999
        <bullet> The Wide Open Race for Money, The Monterey County 
        Herald, July 11, 1999
        <bullet> How Not to Spend the Surplus, The New York Times, June 
        30, 1999
        <bullet> Service in the Age of Information, The Monterey County 
        Herald, May 21, 1999
        <bullet> What the Hell is this War Really About?, The Monterey 
        County Herald, May 16, 1999
        <bullet> A National Nightmare is Ended . . . Or is it?, The Los 
        Angeles Times, February 14, 1999
        <bullet> Impeachment has Weakened the Appeal of Public Service 
        for Young Americans, The Monterey County Herald, January 7, 
        1999
  1998
        <bullet> Time to Rise Above Petty Politics, The Monterey County 
        Herald, November 8, 1998
        <bullet> Censure Makes Sense, The Washington Post, September 
        17, 1998
        <bullet> Putting the Surplus, if Any, to Work, The New York 
        Times, January 9, 1998.
  1997
        <bullet> The True Balance of Power, The New York Times, 
        February 2, 1997

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    As Director of the Central Intelligence Agency, I addressed my 
workforce in my official capacity on a regular basis. In addition to 
these internal speeches, I made the speeches listed below. I am 
providing two copies of each of these speeches, either in transcript 
(T) form or as prepared for delivery (APFD).

        <bullet> Pacific Council on International Policy, Los Angeles, 
        CA, May 18, 2009 T
        <bullet> University of Maryland Commencement Ceremony, College 
        Park, MD, May 21, 2009 APFD
        <bullet> National Italian-American Foundation, Washington, DC, 
        June 11, 2009 APFD
        <bullet> White House Initiative on Historically Black Colleges 
        & Universities, Washington, DC, September 1, 2009 T
        <bullet> Arab-American Iftar Dinner, Dearborn, MI, September 
        16, 2009 APFD
        <bullet> Commonwealth Club of California, San Francisco, CA, 
        October 23, 2009 APFD
        <bullet> Fall of the Berlin Wall Commemoration, CIA 
        Headquarters, November 9, 2009 APFD
        <bullet> CIA Officers Memorial Foundation, Arlington, VA, 
        January 29, 2010 APFD
        <bullet> In-Q-Tel CEO Summit, San Francisco, CA, February 9, 
        2010 APFD
        <bullet> University of Oklahoma, Norman, OK, March 8, 2010 T
        <bullet> Congressional Black Caucus, Washington, DC, April 28, 
        2010 APFD
        <bullet> California State University--Stanislaus Commencement, 
        Stanislaus, CA, June 4, 2010 APFD
        <bullet> National Association of Asian-American Professionals 
        Convention, San Francisco, CA, August 14, 2010 APFD
        <bullet> Hispanic Association of Colleges & Universities 
        Conference, San Diego, CA, September 1, 2010 APFD
        <bullet> Santa Clara University Class of 1960 Reunion, Santa 
        Clara, University, October 8, 2010 APFD
        <bullet> Foreign Language Summit, College Park, MD, December 8, 
        2010 T
        <bullet> Morehouse College, Atlanta, GA, March 15, 2011 APFD
        <bullet> CIA Officers Memorial Foundation, Arlington, VA, March 
        30, 2011 APFD
        <bullet> The Business Council Dinner, Washington, DC, May 12, 
        2011 APFD
        <bullet> The Truman National Security Project & Educational 
        Institute Conference, Washington, DC, May 13, 2011, APFD

    As a Member of Congress and Executive Branch Official in past 
administrations, I gave innumerable speeches--too many to list or 
recall. I usually speak extemporaneously, with the barest of 
handwritten notes. The following are speeches given between 2006 and my 
confirmation as Director of CIA in February 2009 for which I did the 
most preparation, or of which there may be a transcript or recording, 
to the best of my recollection. I have noted where a record is 
available, and the format. In most cases, transcripts and 
videorecordings may be obtained from The Panetta Institute upon 
request.

        <bullet> Commonfund Address, March 12, 2006, video recording
        <bullet> National Marine Sanctuary Foundation Leadership Awards 
        Dinner video tribute to Leon Panetta, June 13, 2006, video 
        recording
        <bullet> CSU Monterey Bay Master of Public Policy open house 
        address, January 9, 2007, video recording
        <bullet> Committee for a Responsible Federal Budget annual 
        conference and dinner, March 13, 2007, video and transcript on 
        website
        <bullet> Marine Economy Forum co-hosted by Roger Williams 
        University and the New England council, April 2, 2007, video 
        recording
        <bullet> Santa Clara University President's Speakers Series: Is 
        There Light at the End of the Tunnel? address regarding the 
        report of The Iraq Study Group, May 31, 2007, video on website
        <bullet> Union University scholarship banquet video 
        introduction, October 23, 2007, video recording
        <bullet> Panetta Institute Jefferson-Lincoln Awards: An Evening 
        to Honor Lives of Public Service, November 10, 2007, cable TV
        <bullet> National Marine Sanctuary Program West Coast Regional 
        Office Sustainable Tourism Symposium: Monterey Bay--Riding the 
        Wave, November 29, 2007, video recording
        <bullet> Commonfund address, March 10, 2008, video recording
        <bullet> Committee for a Responsible Federal Budget annual 
        roundtable and dinner, April 2, 2008, video and transcript on 
        website
        <bullet> Center for the Study of the Presidency address re: 
        challenges facing the next president, April 11, 2008, summary 
        of remarks
        <bullet> Panetta Institute Monterey County Reads Volunteer 
        Recognition Ceremony remarks, May 8, 2008, video recording
        <bullet> Committee for a Responsible Federal Budget forum: 
        Toward Fiscal Responsibility, May 20, 2008, video recording
        <bullet> Carlyle Investment Management LLC, September 9, 2008, 
        video recording
        <bullet> Smithsonian Institute forum: An Evening with the 
        Presidential Chiefs of Staff, September 15, 2008, video 
        recording
        <bullet> California Forward forum: Getting Past Gridlock--
        Achieving Budget Reform, September 24, 2008, video broadcast 
        (Cal. Channel)
        <bullet> Committee for a Responsible Federal Budget forum: What 
        Comes Next? The Economic and Budgetary Consequences of the 
        Bailout, October 8, 2008, video and transcript on website
        <bullet> California Credit Union League address, November 6, 
        2008, video recording
        <bullet> Brookings Institution Memos to the President, November 
        7, 2008, transcript on website
        <bullet> Governors' Global Climate Change Summit: Finding 
        Solutions Through Regional and Global Action, November 18, 
        2008, video webcast.

    Additionally, prior to my confirmation as Director of the Central 
Intelligence Agency, I had often made a short introduction for speakers 
who participated in the Panetta Lecture Series at the Panetta Institute 
and then moderated discussion. A list of recordings of many of these 
events maybe found on the Panetta Institute's Web site at http://
www.panettainstitute.org.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.

    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.

    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.

    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.

    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.

    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.

    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Leon E. Panetta.
    This 26th day of May, 2011.

    [The nomination of Hon. Leon E. Panetta was reported to the 
Senate by Chairman Levin on June 14, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 21, 2011.]
                                     



  NOMINATIONS OF GEN JAMES D. THURMAN, USA, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER, UNITED NATIONS COMMAND/COMBINED 
 FORCES COMMAND/U.S. FORCES-KOREA; VADM WILLIAM H. McRAVEN, USN, TO BE 
ADMIRAL AND COMMANDER, U.S. SPECIAL OPERATIONS COMMAND; AND LTGEN JOHN 
  R. ALLEN, USMC, TO BE GENERAL AND COMMANDER, INTERNATIONAL SECURITY 
          ASSISTANCE FORCE/COMMANDER, U.S. FORCES-AFGHANISTAN

                              ----------                              


                         TUESDAY, JUNE 28, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Webb, Udall, Hagan, Begich, Blumenthal, McCain, Chambliss, 
Brown, Portman, Ayotte, Collins, Graham, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; William 
G.P. Monahan, counsel; and Michael J. Noblet, professional 
staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; Michael J. 
Sistak, research assistant; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Christine G. Lang and Breon N. 
Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Gordon Peterson, assistant to Senator Webb; 
Tressa Guenov, assistant to Senator McCaskill; Casey Howard, 
assistant to Senator Udall; Roger Pena, assistant to Senator 
Hagan; Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Ethan Saxon, 
assistant to Senator Blumenthal; Lenwood Landrum, assistant to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; Joseph Lai, assistant to Senator Wicker; Charles 
Prosch, assistant to Senator Brown; Brent Bombach, assistant to 
Senator Portman; Brad Bowman, assistant to Senator Ayotte; Ryan 
Kaldahl, assistant to Senator Collins; Sergio Sarkany, 
assistant to Senator Graham; and Dave Hanke and Russ Thomasson, 
assistants to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider three military 
nominations for command of some of the most critical and 
challenging missions facing our Nation.
    Our witnesses this morning on what is truly a joint panel 
are General James Thurman, U.S. Army, nominated to be 
Commander, United Nations Command, Combined Forces Command, and 
U.S. Forces Korea; Vice Admiral William McRaven, U.S. Navy, for 
appointment to the grade of admiral and nominated to be 
Commander, U.S. Special Operations Command (SOCOM); and 
Lieutenant General John Allen, U.S. Marine Corps, for 
appointment to the grade of general and nominated to be 
Commander of the North Atlantic Treaty Organization (NATO) 
International Security Assistance Force (ISAF) and U.S. Forces-
Afghanistan.
    Thank you all for your many years of great service to this 
Nation and your willingness to serve once again.
    Let me also extend our thanks to your families, whose 
support is so essential to your and our Nation's success. As is 
the tradition of this committee, I would invite each of you to 
introduce any family members or friends who may be here with 
you when you make your opening remarks.
    General Thurman's nomination as the next Commander of U.S. 
Forces in Korea comes at a time of significant change and 
simmering tension on the Korean Peninsula. Our commitment to 
peace and stability in the region remains steadfast, and our 
alliance with the Republic of Korea (ROK) is as strong as ever.
    The strength of that alliance will be particularly 
important over the next few years, as we embark on an ambitious 
realignment of our forces on the peninsula and need to deal 
with the unpredictable and aggressive behavior of a North 
Korean regime that continues to follow the destructive path of 
an international pariah.
    General Thurman's long experience in positions of 
leadership and with maintaining well-trained, equipped, and 
ready soldiers provides the kind of foundation and professional 
skills that will be required of the U.S. commander in Korea.
    Vice Admiral William McRaven is nominated to be the ninth 
Commander of SOCOM. Admiral McRaven has commanded at every 
level in the special operations community, most recently as 
Commander of the Joint Special Operations Command (JSOC), and 
served in various staff and interagency positions, including 
time with the National Security Council. Incoming Secretary of 
Defense Leon Panetta has credited Admiral McRaven with being 
the ``real commander'' of the extraordinary operation that 
killed Osama bin Laden.
    Admiral McRaven has been nominated to be Commander of SOCOM 
at a time of exceptionally high operational tempo and growth 
for Special Operations Forces (SOF). As the current Commander 
of SOCOM, Admiral Eric Olson, told the committee earlier this 
year, ``Since September 11, our manpower has roughly doubled, 
our budget has roughly tripled, and our overseas deployments 
have quadrupled.'' Admiral Olson has also indicated that the 
force is beginning to show signs of ``fraying around the 
edges.''
    Admiral McRaven, the committee looks forward to hearing 
your thoughts on how the stress on special operations personnel 
can be mitigated, given the demand for their unique skills. The 
committee is also interested in your views on the future of 
special operations and the challenges that special operations 
personnel are likely to face. Will the announced drawdown of 
forces in Afghanistan impact SOF, given that SOF depend heavily 
on their counterparts in the general purpose forces for many of 
the enabling capabilities that they need to be successful?
    In addition, the committee would be interested in your 
thoughts on the employment of the range of special operations 
capabilities against al Qaeda and associated groups outside of 
Afghanistan, Pakistan, and Iraq. Director Panetta has expressed 
concern about al Qaeda's shifting to other places, most notably 
in Yemen, Somalia, and North Africa, and I hope that you will 
address what you see as the appropriate role for SOF in those 
areas.
    In announcing Lieutenant General Allen's nomination, 
President Obama called him ``the right commander to take over 
the vital mission in Afghanistan.'' If confirmed, Lieutenant 
General Allen will have some big boots to fill in succeeding 
General Petraeus as Commander of the 49-member ISAF coalition 
and U.S. Forces-Afghanistan.
    Like General Petraeus, General Allen brings an in-depth 
understanding of the complexities of the counterinsurgency 
(COIN) effort based on his own experience as the commander in 
Anbar Province in Iraq. Working with the Sunni Awakening, the 
marines in Anbar succeeded in getting local Sunni tribal 
leaders to reject the insurgency and instead support the Iraqi 
Government.
    As the Deputy Commander at U.S. Central Command (CENTCOM), 
General Allen has developed a regional perspective on issues 
affecting the mission in Afghanistan. He will be the first 
marine to serve as the top commander in Afghanistan.
    General Allen's number-one priority will be implementing 
President Obama's decision last week to accelerate the 
transition of security responsibility to Afghan forces and to 
start bringing U.S. surge forces home. As outlined by the 
President, 10,000 U.S. troops will be withdrawn by the end of 
this year, and the remaining 23,000 U.S. surge forces will be 
drawn down by September of next year.
    The President's decision keeps the pressure on Afghan 
leaders to assume more and more responsibility for their 
security, just as the establishment of a date to begin 
reductions had the effect of creating a sense of urgency on the 
part of the Afghan Government to take responsibility for 
Afghanistan's security. The assumption of that responsibility 
by the Afghans is the path to a successful mission and a 
stable, non-Taliban-controlled Afghanistan.
    The President's transition decision was buttressed by the 
significant gains that coalition and Afghan forces, partnered 
together, have made in the last year in reclaiming former 
Taliban strongholds, particularly in the south.
    Another major change in the last year is the surge in 
Afghan Security Forces. There are now 100,000 more Afghan 
Security Forces than 18 months ago when President Obama 
announced the U.S. surge, and another 70,000 Afghan soldiers 
and police who will be trained and equipped by the end of next 
summer, when all 33,000 U.S. surge troops will have withdrawn.
    In his testimony to Congress last week, Chairman of the 
Joint Chiefs of Staff Admiral Mullen characterized the 
President's decision as ``more aggressive and incurring more 
risk'' than Admiral Mullen had initially recommended. However, 
Admiral Mullen felt that, ``Only the President in the end can 
really determine the acceptable level of risk that we must 
take,'' because, as he put it, ``The truth is, we would have 
run other kinds of risks by keeping more forces in Afghanistan 
longer.''
    Among those other risks, Admiral Mullen said, are the risks 
of perpetuating greater Afghan dependence on our forces and 
inhibiting the growth and capability and confidence on the part 
of Afghan forces. The committee will be interested in hearing 
from General Allen as to his views of the President's decision.
    Again, gentlemen, our great thanks and our gratitude go to 
each of you and to your families.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our very distinguished witnesses, who are each 
nominated for a military command that is essential to the 
security of our Nation and our allies. I want to thank each of 
them for their many years of dedicated service and for stepping 
forward again when called upon to serve when and where their 
Nation needs them most.
    All of you will help lead a force that has been at war for 
10 years. We honor the service and sacrifice of our men and 
women in uniform, and we pray that they will return safely and 
successful in their missions.
    General Thurman, you have been nominated to lead our forces 
on the Korean Peninsula at a tense time in this long-running 
conflict and a critical time for our alliance with the ROK. We 
thank General Sharp for his leadership over the past few years.
    The U.S.-ROK alliance has never been better and stronger. 
But the situation on the peninsula has rarely been as dangerous 
as it is today. The transition of power in North Korea from 
father to son has contributed to a series of provocative acts 
of aggression against our South Korean allies.
    It is clear to me that if there is another such 
provocation, South Korea will not turn the other cheek. This 
has serious implications for the United States as we are bound 
as treaty allies to the defense of South Korea. We remain as 
committed as ever to our responsibilities. It is for this 
reason, and especially in light of the heightened state of 
alert and increased tensions, that we need to take a hard look 
at our current plans for U.S. force realignment and tour 
normalization on the Korean Peninsula.
    This committee needs a better understanding of this major 
undertaking, the costs of which are significant and growing. 
But ultimately, what must guide U.S. defense policy vis-a-vis 
the ROK is our obligation to ensure our mutual security and 
success.
    Admiral McRaven, what you have achieved in your 
distinguished career was already extraordinary before May 2, 
2011. But on that day, by leading the mission that killed Osama 
bin Laden, you and your men won an enduring place in American 
military history. To say that I am confident in your ability to 
lead SOCOM is an understatement.
    Admiral Olson has done an exceptional job, and I am 
confident that you will build on his great work, if confirmed. 
The leader of al Qaeda is dead, but a new one has taken his 
place. Your mission will be to help ensure he meets the same 
end.
    At the same time, a series of deadly franchises, especially 
al Qaeda in the Arabian Peninsula, continues to threaten the 
security of our Homeland, our interests, our friends, and our 
allies. We look to SOCOM to continue planning and synchronizing 
our global operations and to continue building up the capacity 
of our partners to defeat our enemies far away from our 
Homeland.
    Finally, General Allen, you have perhaps the biggest boots 
to fill in General David Petraeus, but we know that General 
Petraeus personally recommended you and supported you as his 
successor to lead our mission in Afghanistan. I can think of no 
higher compliment to pay a military officer.
    The challenge that you will face in Afghanistan was always 
going to be significant. But I fear this challenge has only 
been increased unnecessarily by the drawdown of U.S. forces 
that the President announced last week.
    I agree with the President that we are making amazing 
progress in Afghanistan. This progress is real, and it is 
remarkable. But as our commanders on the ground all point out, 
it is also fragile and reversible.
    Our commanders also say that next year's fighting season 
will be decisive. This will be our opportunity to consolidate 
our gains in southern Afghanistan while increasing numbers of 
U.S. forces shift their main effort to eastern Afghanistan, 
where the Haqqani Network, al Qaeda, and other regional 
militant groups are still present and operating actively.
    However, under the President's plan, which calls for having 
all of our surge units out of Afghanistan by September, these 
troops will begin flowing out of Afghanistan right at the time 
that the Taliban, al Qaeda, and their terrorist allies begin to 
step up their operations next spring and summer. At the moment 
when our troops could finish our main objective and begin 
ending our combat operations in a responsible way, the 
President has now decided to deny them the forces that our 
commanders believe they need to accomplish their objective.
    I hope I am wrong. I hope this decision will not endanger 
the hard-won gains that our troops have made or the decisive 
progress that they still need to make next year. But I am very 
concerned that the President's decision poses an unnecessary 
risk to the progress we have made thus far, to our mission, and 
to our men and women in uniform.
    After all that we have given to this mission--the money we 
have committed to it, the decade we have devoted to it, and the 
precious lives we have lost in it--why would we do anything now 
that puts our mission at greater risk of failure? By drawing 
down U.S. forces those several months early so that they miss 
the next fighting season, how much additional risk are we 
incurring, and how could it negatively affect our mission? 
Those are just some of the questions we must answer at this 
critical moment.
    It is a pleasure to have all of you before the committee 
today. You all make me proud of America's Armed Forces and 
confident about their future.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Let me now call on our witnesses for their opening 
statements.
    General Thurman?

 STATEMENT OF GEN JAMES D. THURMAN, USA, FOR REAPPOINTMENT TO 
   THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED NATIONS 
       COMMAND/COMBINED FORCES COMMAND/U.S. FORCES KOREA

    General Thurman. Chairman Levin, Senator McCain, and other 
distinguished members of the Senate Armed Services Committee, I 
thank you for the opportunity to appear here today.
    I would like to thank the Secretary of Defense and the 
President for nominating me to be the next Commander, United 
Nations Command; Commander, U.S.-ROK Combined Forces Command; 
and Commander, U.S. Forces Korea.
    If confirmed, I look forward to working closely with this 
committee, as well as our alliance partner, the ROK, to address 
the challenges and opportunities we face together on the 
strategically important Korean Peninsula. Recognizing that a 
strong U.S.-ROK alliance is one of the most important factors 
for maintaining peace and stability on the Korean Peninsula and 
in the region at large, I will, if confirmed, continue the work 
of my predecessors directed at sustaining strong ties with our 
Korean partner.
    I would also like to thank this committee for the support 
it has provided to our soldiers, sailors, airmen, and marines, 
our Department of Defense civilians and their families, who 
selflessly serve our great Nation both at home and abroad. As 
the Commander of U.S. Army Forces Command, which is the Army's 
largest organization, I am all too well aware of the support 
this committee has provided and the difference this support has 
made to the men and women who serve our country in the Armed 
Forces.
    If confirmed, I will make every effort to ensure that those 
serving us in the ROK will receive the very best working, 
living, and training environment that can possibly be provided. 
If confirmed, I look forward to working with this committee to 
achieve this commitment.
    I would also like to thank my wife, Dee, for over 37 years. 
She has been magnificent in raising our two daughters, Jaime 
and Carey, who are now both married to Army officers and 
bringing up our four grandchildren.
    Dee has also selflessly supported our soldiers and their 
families. Like other military spouses, she is truly an unsung 
hero. I am blessed to have her love and commitment as I 
continue to serve our Nation.
    With that, I thank the committee again for allowing me to 
appear before you today. I look forward to answering your 
questions.
    Chairman Levin. General, thank you so much.
    Admiral McRaven?

 STATEMENT OF VADM WILLIAM H. McRAVEN, USN, TO BE ADMIRAL AND 
           COMMANDER, U.S. SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Chairman Levin, Senator McCain, 
distinguished members of the committee, thank you for allowing 
me the opportunity to appear here today.
    I am deeply honored that the President has nominated me to 
serve as the next SOCOM commander. If confirmed, I promise you 
that I will work tirelessly to ensure that SOCOM continues to 
provide the American people the finest SOF in the world.
    Joining me today is my wife, Georgeann. She has been a 
constant source of strength to me and to the men and women and 
their families with whom I have served. I have been extremely 
lucky to have her by my side for the past 33 years.
    I have three children as well. My oldest son is a captain 
in the Air Force. My number-two son is completing his Ph.D. in 
California, and my daughter is going into her junior year in 
college.
    I have been very fortunate to have spent the past 34 years 
in special operations, and I can tell you from my personal 
experience that the decision by Congress to establish SOCOM was 
the best thing that ever happened to SOF. As a result of your 
efforts and your interest in the well-being of U.S. special 
operations soldiers, sailors, airmen, marines, and civilians, 
we have the best-trained, the best-equipped, and the most 
experienced SOF in the history of the United States and 
possibly the world.
    The special operations soldier's unparalleled contributions 
to the security of this great Nation in Iraq, Afghanistan, and 
around the world are a direct reflection of the support SOCOM 
has received from Congress over SOCOM's 24-year history. I want 
to personally thank you for that support.
    If confirmed, I will continue to train, organize, equip, 
deploy, and, when directed by the Secretary of Defense, employ 
this force across the spectrum of conflict. We will at all 
times be prepared to answer the Nation's call with experienced 
forces whose intellect, maturity, and courage allows them to 
operate in politically and militarily complex environments--men 
and women who relish challenges and who willingly go where the 
threat to America is at its greatest.
    However, as good as this force is, I know that, if 
confirmed, one of my primary responsibilities will be to ensure 
the SOF members and their families are well taken care of, both 
physically and emotionally. In his 2011 posture hearing, 
Admiral Eric Olson noted that as a result of 10 years of 
continuous combat, the force is frayed at the edges.
    Admiral Olson and his wife, Marilyn, were exceptionally 
engaged in the welfare of the SOF soldiers and their families, 
particularly our wounded warriors. If confirmed, Georgeann and 
I will follow their lead and put forth every effort to ensure 
the well-being of the individuals under my command and the 
families that support them.
    It has been my privilege to serve my entire career in 
special operations. In all those years, I have never ceased to 
be amazed by the courage and sacrifice of the men and women in 
special operations. I am humbled to be considered for 
assignment as their commander.
    Thank you very much, and I am standing by for any 
questions.
    Chairman Levin. Thank you very much, Admiral.
    General Allen?

   STATEMENT OF LTGEN JOHN R. ALLEN, USMC, TO BE GENERAL AND 
 COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE/COMMANDER, 
                    U.S. FORCES-AFGHANISTAN

    General Allen. Chairman Levin, Senator McCain, 
distinguished members of the committee, thank you for this 
opportunity to appear before you today.
    I am truly honored to be nominated by the President to 
command the International Security Assistance Force and U.S. 
Forces in Afghanistan. I am grateful to the Members of 
Congress, the Secretary of Defense, the Chairman of the Joint 
Chiefs of Staff for their confidence, the support, and 
assistance extended to me since my nomination.
    Of course, I am and have always been humbled by the 
incredible sacrifice of our servicemembers and their families, 
who have continued to serve our Nation despite many hardships.
    Mr. Chairman, at this point, I must note the vital role of 
this committee and its leadership in providing crucial support 
to our men and women who have so honorably served in 
Afghanistan and Iraq. Thank you for that support.
    I would also like to start by acknowledging and thanking 
General David Petraeus, whose outstanding service as the 
Commander of ISAF has been so essential to generating the 
progress that we have seen in Afghanistan. If confirmed, I will 
seek to emulate his principled and resolute leadership. If he 
is confirmed to be the Director of the Central Intelligence 
Agency, I look forward to a very close working relationship 
with him and with the rest of the Intelligence Community.
    I would also like to express my admiration for Ambassador 
Eikenberry and his team in Kabul for their untiring dedication 
to the mission. If confirmed, I look forward to working with my 
friend, Ambassador Ryan Crocker, with whom I served in Iraq, 
and the NATO senior civilian representative, Ambassador Simon 
Gass, to ensure that our military and civilian efforts are 
closely synchronized.
    I would also like to express my profound admiration for all 
of the partner nations and their forces in Afghanistan. With 49 
ISAF nations from all over the globe currently serving in 
Afghanistan and supporting that mission, the scale of this 
coalition is truly historic.
    As General Petraeus has noted, Afghan and ISAF forces have 
halted the insurgency's momentum in much of the country and 
reversed it in key areas. Based on my work as the Deputy 
Commander of CENTCOM, numerous visits to the theater over the 
past 3 years, including last month, and extensive discussions 
with senior military and civilian leaders, I share in that 
assessment.
    Afghan and coalition forces now largely control the battle 
space in strategically important areas such as Kabul, where 
one-fifth of the Afghan population lives; in and around 
Kandahar, the spiritual and historic sanctuary of the Taliban; 
and in Helmand, a former Taliban stronghold; and in many other 
key areas.
    Meanwhile, we are continuing to exert unprecedented 
pressure on the insurgency, with a variety of efforts, 
including the Afghan Local Police initiative, which is 
mobilizing communities to defend themselves; Afghan-led efforts 
to reintegrate former fighters, with nearly 1,900 reintegrated 
to date having joined the peace process; and a variety of 
governance and development initiatives focused on establishing 
the conditions to achieve long-term security.
    Much of this progress has been enabled by and increasingly 
led by the Afghan National Security Forces (ANSF), who are 
conducting their own surge. They are currently on track to meet 
the 2011 goal of 305,000 troops, and substantially more and 
more capable Afghan forces will be trained and fielded over the 
next year as well.
    Although there are reasons to be cautiously optimistic, 
there are also many challenges remaining. Insurgents still 
maintain lethal capabilities, and the fighting will continue to 
be intense in some of the areas as the enemy seeks to recover 
lost territory. Transnational terrorist groups like al Qaeda 
will seek to establish new bases and safe havens in Afghanistan 
and Pakistan, and corruption and other challenges to good 
governance will still need to be addressed.
    Still, none of these challenges are insurmountable. As the 
President announced last week, and in fulfillment of his West 
Point commitments, we will begin the drawdown of surge forces 
next month. Although I was not a participant in those 
discussions, I support the President's decision and believe 
that we can accomplish our objectives.
    If confirmed, I will offer my candid assessment to the 
chain of command on the current state of the conflict, as well 
as provide options with respect to the President's goals in 
accomplishing this strategy.
    Even once the security surge forces have been removed, 
there will still be some 68,000 U.S. troops and thousands of 
international forces in Afghanistan, not to mention some 70,000 
more Afghan forces, which will join the fight in the next 15 
months, at the same time the United States and NATO are both 
discussing long-term strategic partnerships with Afghanistan. 
This reality sends an important message of commitment to the 
Afghan people, as well as a sense of urgency that Afghans must 
take more responsibility for their security.
    I would like to close by thanking my family and, most 
importantly, my wife, Kathy, who is with me here this morning, 
for her years of dedicated and loyal service to our magnificent 
troops and their families. Kathy raised our two daughters, 
Betty and Bobbie, often alone, during a career where we have 
been married for 34 years. They have grown up, those two young 
ladies, to be wonderful and independent women and citizens.
    I would also like to add that Kathy and I understand the 
sacrifices of war, with both our families having experienced 
conflicts firsthand across the span of American history. If 
confirmed, I assure you and all the military families that I 
will do everything I can to provide our forces in Afghanistan 
with the resources they need to accomplish the mission and to 
return home safely.
    Chairman Levin, Senator McCain, distinguished members of 
the committee, it has been a great honor to appear before you 
this morning. I am prepared to answer your questions.
    Thank you.
    Chairman Levin. Thank you so much, General Allen. Now, let 
me ask the three of you the standard questions that we ask of 
our witnesses.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest? [All witnesses answered in the 
affirmative.]
    Do you agree, when asked, to give your personal views, even 
if those views differ from the administration in power? [All 
witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
outcome? [All witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings? [All witnesses answered in the 
affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests? [All witnesses answered in 
the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings? [All witnesses answered in the 
affirmative.]
    Do you agree, if confirmed, to appear and testify upon 
request before this committee? [All witnesses answered in the 
affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents? [All witnesses answered in 
the affirmative.]
    Okay, let us try a 7-minute first round of questions. We 
have three votes at noon, which may complicate this a bit. We 
will see how it works out.
    General Allen, let me start with you. You indicated in your 
advance policy questions and your testimony that you agree and 
support the President's decision on U.S. troop reductions in 
Afghanistan. Can you tell us a little more why you do agree 
with this decision?
    General Allen. Mr. Chairman, the President, in December 
2009, enunciated the strategy, a result of a deliberate process 
of the review of the situation in Afghanistan, which was to be 
resourced in a number of different ways, but in particular with 
the surge forces. At that time, he announced that those surge 
forces would begin to be withdrawn in July 2011.
    There were two points, I think, that were made importantly 
in that speech. One was that the nature of this resourcing of 
that strategy was a clear signal of U.S. support to Afghanistan 
and our intent to provide Afghanistan the opportunity and the 
time to begin to develop its ANSF to provide for the security 
of the country.
    But also the other aspect of his announcement was that by 
beginning to withdraw those surge forces in July 2011, it sent 
a message of urgency to the Afghans that they must begin to 
take ownership of their security themselves. The President's 
announcement in West Point set the schedule ultimately for the 
withdrawal of those forces.
    This was augmented ultimately in the meeting in Lisbon, the 
conference in Lisbon in November 2010, where the schedule for 
transition was developed, where our security forces would 
provide ultimately the cover for the Afghan forces as the 
transition of terrain in Afghanistan proceeded from 2011 to 
2014. In essence, at the end of 2014, Afghan forces being in 
the lead across the country.
    That brings us to the President's announcement. We expected 
that he would begin the process of the withdrawal. He has made 
that announcement. As General Petraeus and the Chairman said 
last week, we are accounting for that number.
    We will begin the implementation. He has begun the 
implementation in Afghanistan with his ISAF staff to implement 
the President's decision. I support that because that decision 
was timely. It provides a full accounting for the President's 
commitments in December 2009.
    As we begin the implementation, we will continue to have 
68,000 American forces on the ground, an upswing of about 
70,000 ANSFs, and we anticipate that this decision by the 
President can be accounted for within the current strategy, 
sir.
    Chairman Levin. How important, General, is it to the 
success of the mission in Afghanistan that the Afghan Security 
Forces take ownership of the responsibility for their security?
    General Allen. Mr. Chairman, it is essential. In the end, 
our strategy has envisioned that the Afghan Security Forces 
would take ownership all along.
    In the aftermath of the Lisbon conference, the intent was, 
as agreed to by the member nations of the coalition and by 
President Karzai, that transition would be completed by 2014, 
where ISAF forces would support the development and the 
deployment of the ANSFs and by the end of 2014 be in a position 
to provide strategic overwatch of that. It is essential to the 
strategy, Mr. Chairman.
    Chairman Levin. Now let me ask you, Admiral, do you see the 
President's announced reductions as creating problems for SOFs 
in Afghanistan?
    Admiral McRaven. Sir, I do not. As General Allen mentioned, 
there is still going to be a sizable U.S. force and coalition 
force there. For SOF to operate effectively in Afghanistan, we 
need to make sure that we continue to have the infrastructure, 
which will remain in place and, frankly, the enablers, which 
are always critical to us.
    If confirmed, I will work with General Allen to make sure 
that we balance the counterterrorism and the SOF requirements 
with the conventional requirements so that at the end of the 
day, we are still able to put pressure on the enemy. So, no, 
sir, I do not think the drawdown will affect SOF.
    Chairman Levin. Admiral, what is the role of Afghan Special 
Forces in the counterterrorism operations that have been 
carried out? How would you assess the capability of the Afghan 
forces?
    Admiral McRaven. Yes, sir. There is a number of different 
Afghan SOF forces, if you will. There are the Afghan commandos, 
which are trained by U.S. Army Special Forces personnel, and 
they are clearly some of the elite Afghan forces. They are 
magnificent soldiers.
    There are Afghan Special Forces, which are the Green Beret 
counterpart. Then with the force that I operated with, we had 
what we referred to as the Afghan partner unit. These were 
Afghans that went on target with the JSOC forces forward to 
ensure that we had an Afghan that was, if you will, going 
through the door first, that was making first contact with the 
locals, in order to make sure that we kind of protected the 
culturally sensitive issues or items that were on target.
    The Afghans that we have worked with are top notch, to be 
honest with you, sir.
    Chairman Levin. How important is it to our counterterror 
effort and to our counterinsurgency effort that they be in the 
lead in that way, the Afghan Special Forces be in the lead?
    Admiral McRaven. Yes, sir. I think it is very important. As 
General Allen mentioned, at the end of the day, the Afghans 
have to take ownership for the security of Afghanistan, and I 
would say the same thing applies to special operations.
    At the end of the day, we have to make sure that the 
Afghans take the lead in special operations, recognizing that, 
right now, we still need to maintain a fair amount of 
overwatch. But over time, hopefully, that overwatch will 
diminish and the Afghans will take a larger role in that.
    Chairman Levin. You feel they are capable of doing so?
    Admiral McRaven. I do, sir.
    Chairman Levin. Let me ask both of you, Admiral, General 
Allen, the safe haven enjoyed by the Haqqani Network in 
Pakistan continues to provide the freedom for that group to 
launch attacks against the United States and coalition troops 
in Afghanistan.
    You both, I believe, have talked to Pakistani military 
leaders. Why does Pakistan refuse to take on the Haqqani 
Network? In your judgment, is that going to change?
    Let me start with you, General Allen.
    General Allen. Sir, I think it is a complex answer that we 
would receive from them. It is a function probably of capacity. 
But it might also be a function of their hedging, whether they 
have determined that the United States is going to remain in 
Afghanistan, whether our strategy will be successful or not.
    At some point, as we have emphasized to the Pakistanis, we 
have to bring pressure to bear on this insurgent safe haven. In 
the end, what we would hope is that they would listen to our 
desires for them to do that, would muster the capacity and the 
capability, and ultimately put pressure on the Haqqani Network 
to deny them that safe haven from which that element of the 
Taliban can move across the border and conduct operations 
against ISAF and against the ANSFs as they take over more of 
the security.
    Chairman Levin. Admiral, do you want to comment? Is this 
likely to change in the near term?
    Admiral McRaven. Sir, I don't think it is likely to change. 
I would agree with General Allen. It is a very complex 
situation, obviously, in Pakistan.
    As both General Allen and I have had an opportunity to talk 
to military leaders in Pakistan, again, it is both a capacity 
issue for the Pakistanis and I think potentially a willingness 
issue, recognizing that the situation in the Federally 
Administered Tribal Areas is difficult for them to deal with.
    Chairman Levin. Something has to give, something has to 
change because it just can't continue this way, for them to 
expect that we are going to have a normal relationship with 
them, which we all hope for. But it can't continue this way 
with that expectation in place.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Allen, do you know of any military leader that 
recommended in 2009 that the President make an announcement in 
2011 of drawdown of troops?
    General Allen. I do not, Senator.
    Senator McCain. Do you know of any military leader that 
recommended the drawdown plan that the President announced last 
week?
    General Allen. I do not, Senator.
    Senator McCain. Does it surprise you that after the 
President's announcement, that President Sarkozy, the British, 
other of our allies have now announced that they will be 
withdrawing from Afghanistan?
    General Allen. It does not, Senator.
    Senator McCain. Did you see the picture in the paper over 
the weekend of President Karzai and the Ayatollah Khamenei 
sitting down at a meeting, pledging friendship, support for one 
another?
    General Allen. I didn't see the picture, sir, but I was 
aware of the meeting.
    Senator McCain. Is it true that improvised explosive 
devices (IED) manufactured in Iran are still coming across the 
border into Afghanistan and killing Americans?
    General Allen. I believe they are, sir.
    Senator McCain. Did you hear of the statement the Taliban 
field commander, Jamal Khan, told the Daily Beast of his 
reaction to Mr. Obama's speech? ``My soul and the soul of 
thousands of Taliban who have been blown up are happy. I had 
more than 50 encounters with U.S. forces and their technology, 
but the biggest difference in ending this war was not 
technology, but the more powerful Islamic ideology and 
religion.''
    Are you aware of that statement by the leader of the 
Taliban?
    General Allen. I am, Senator.
    Senator McCain. Does the President's announcement of this 
withdrawal make your job--if you are confirmed, and I am sure 
you will be--more difficult and more challenging or easier?
    General Allen. Senator, that is a difficult question to 
answer, sir.
    Senator McCain. I am sure it is. That is why I asked it.
    General Allen. Not being confirmed yet and not being the 
commander, I have no ability to assess it with great accuracy 
at this particular moment. As the Chairman said, the announced 
decision was a bit more aggressive than we had anticipated. But 
he supported the decision. General Petraeus supports the 
decision.
    General Petraeus is working now to begin the implementation 
of that decision. We had anticipated that those forces would be 
coming out. There is a lot that has to happen between now and 
the end of this year, sir, and the end of the period of the 
drawdown.
    Senator McCain. General, I understand why it would be 
difficult for you to answer that question. I appreciate that, 
and I appreciate your answer.
    I have talked to probably 20 retired and Active Duty 
military leaders since the President's announcement was made, 
and it is very obvious that the challenges are now enormous. 
The question is whether we will still be able to succeed or 
not. I appreciate your willingness and your patriotism to take 
on what is obviously a dramatically increased risk.
    The Economist states again this week, ``Mr. Obama would 
only have himself to blame if, for entirely domestic political 
reasons, he undermines the conditions for a security transition 
to Afghan national forces by 2014 that still looks just about 
doable. His rush for the exit could yet end up delaying the 
very thing he is hoping for.'' I think that summarizes the 
views of most.
    Admiral McRaven, do you believe that the United States 
should have a residual force in Iraq in order to assist 
particularly with special operations functions, intelligence?
    Admiral McRaven. Sir, I think that it would be mutually 
beneficial to us and the Iraqis if, in fact, that was the case. 
Obviously, it remains to be seen whether the Iraqis will want 
us to stay past the intended drawdown time. But clearly, there 
is still a threat in Iraq, and a small, soft presence there I 
think would be advisable.
    Senator McCain. If you look at recent U.S. casualties, the 
situation, at least in some respects, politically as well as 
militarily, has shown some deterioration. Would you agree?
    Admiral McRaven. Sir, I would. Statistically, that appears 
to be the case. Yes, sir.
    Senator McCain. General Allen, do you believe that we ought 
to have an enduring military presence, for example, a base, an 
air base in Afghanistan? Everything that I know and hear is 
that President Karzai is very interested in such an 
arrangement.
    General Allen. Sir, I believe we should have an enduring 
military relationship with the Afghans. How ultimately that 
would be negotiated, how ultimately those missions, roles, and 
functions would be determined I think remains to be determined 
by discussions with the Afghans and certainly our own 
discussions and our determination.
    With regard to a permanent base, I don't believe that we 
need a permanent base in Afghanistan. We could probably conduct 
operations over the long term from a shared basing concept 
within Afghanistan.
    Senator McCain. I guess we are getting into semantics here. 
A shared basing concept is, I think, fairly agreeable.
    General Thurman, this committee has shown some serious 
concerns about the cost and the policy of the base realignment. 
I hope you will work with us closely on that issue, and I think 
we are going to ask for a pause until we can get a full 
evaluation.
    My question, though, is that there has been recent public 
reports about a North Korean ship that was turned around that 
may have had materials in it which would have had some--again, 
press reports are it had, perhaps some nuclear technology 
onboard. It was headed for Burma. It was turned around by the 
United States and headed back to port in North Korea.
    Can you tell the committee anything about that?
    General Thurman. Senator, only what I have read in the open 
source. I do know there are two United Nations Security Council 
Resolutions, 1718 and 1864, that the purpose of that is to 
prevent the proliferation of nuclear or weapons of mass 
destruction from North Korea.
    I believe it is very important that we continue to monitor 
that carefully. I believe it needs to be dealt with in a whole-
of-government approach.
    Senator McCain. I thank you.
    I say congratulations to the three of you, and you make all 
of us extremely proud that the United States is blessed with 
such leadership, dedication, and sacrifice; and that includes 
your families as well.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I would pick up where Senator McCain left off and say that 
listening to the opening statements that the three of you made 
and hearing you respond to the questions of Chairman Levin and 
Senator McCain, which I would not describe as softballs, I 
think the cumulative effect is that you are really a very 
impressive group.
    Today, I think you have shown us your intelligence and that 
you are well spoken. Your records speak really with 
extraordinary power to a career of patriotism, bravery, and 
leadership capacity. You remind us about how much every 
American has to be grateful to you and everyone else in uniform 
for all you do every day to protect our security and our 
freedom. I thank you very much for that.
    General Allen, I want to get into the decision that the 
President made last week and announced about Afghanistan, let 
me just ask you this question. As I understand what was 
announced, one way to look at it is that this calendar year, we 
will withdraw from Afghanistan 10,000 of the 33,000 troops we 
surged as a result of the President's decision in December 
2009. Next year, we will withdraw the remaining 23,000 by 
sometime in September.
    But here is what I want to ask you. My understanding is 
that within those parameters this year and next year, you, as 
ISAF commander, will be given latitude to determine both the 
pace of the withdrawal that will begin in July and which of our 
forces are withdrawn. Is that correct?
    General Allen. That is correct, sir.
    Senator Lieberman. The second question I want to ask is 
this. In your response to the questions submitted to you by 
this committee, you state, ``I will constantly monitor and 
assess the situation on the ground, and should I determine the 
situation has changed, I will so advise my chain of command 
through the proper channels.''
    My understanding of what you are saying there is that if, 
as we go through this year into next year, you find that the 
pace of the withdrawal is having an effect on what is happening 
on the ground in Afghanistan that you think is really negative, 
that you will exercise your authority to report that up the 
chain of command and, if necessary--this is a hypothetical--
would ask that the pace of withdrawal be slowed down?
    General Allen. Senator, that is a very important question. 
If confirmed, and if I take command of ISAF, I am going to 
monitor the operational environment and the conditions 
constantly, not just as it relates to the drawdown of the 
forces with respect to the surge, but throughout the entire 
period of time I command during this campaign.
    It is my responsibility to the chain of command and to our 
Commander in Chief to ensure that should I be concerned over 
the progress of the execution of the campaign, that I so advise 
the chain of command with my forthright advice. I will make 
that obligation now. I state that obligation now, and I see 
that as an important responsibility, sir.
    Senator Lieberman. I appreciate that reassurance and I 
thank you for it.
    Admiral McRaven, with regard to Afghanistan, obviously, the 
SOF has been playing an extraordinarily important role in the 
counterinsurgency strategy that we are carrying out there with 
significant success. Is it your expectation as the drawdown of 
our forces overall, pursuant to the President's decision last 
week, goes forward, that the SOFs are likely not to be drawn 
down in number? I think you know what I am asking.
    Admiral McRaven. Yes, sir. Sir, I think that remains to be 
seen. Again, if confirmed, I will work very closely with 
General Allen and General Mattis to take a look at what the 
right balance is for SOFs.
    We have to strike a good balance between the conventional 
piece and the various elements of SOF in order to be 
successful, I think.
    Senator Lieberman. Yes, I accept that answer. My own sense 
of it is that as the forces, our overall number is drawn down, 
it may be that the special operating forces are going to be 
even more critical. So that they, in some sense, would be not 
the last, but you would want to have a critical mass of SOF 
there as this goes on.
    Admiral McRaven. Yes, sir.
    Senator Lieberman. General Allen, do you have an opinion 
going in about that?
    General Allen. I do, Senator, thank you.
    We are currently engaged in a comprehensive civil-military 
counterinsurgency campaign of which counterterrorism and the 
role of SOF forces play a very important role.
    Senator Lieberman. Right.
    General Allen. As this campaign continues to mature, as we 
continue to look at the progress on the ground, we may well see 
that the role of SOF may increase, in fact, as time goes on 
within the context of the counterinsurgency campaign.
    SOF does more than simply direct action or strike 
operations. SOF is critical to the development of capacity, as 
Admiral McRaven has already said, with respect to the Afghan 
Security Forces. But also SOF is playing a vital role on the 
ground in the establishment of the Afghan Local Police program 
and the Village Stability Operations program.
    All of that together constitutes an enormously powerful 
contribution by special operating forces to the campaign today, 
and we would see that an enduring contribution over the long 
term, out to 2014 and beyond.
    Senator Lieberman. Thank you.
    General Thurman, arguably, you will be assuming command in 
Korea at the most dangerous time in quite a while. I say that 
based on the continuing provocations by North Korea of our 
allies in the ROK, by the statement that the President of the 
ROK has made that if there is another provocation, there will 
be a response in measure from South Korea, our allies.
    But also because we are watching a pattern of aggressive 
behavior by the People's Republic of China in the region 
generally that is quite different than what we have seen for a 
while, really staking claims to territory and a kind of 
extended sovereignty that we haven't seen in quite this way.
    I wondered, going in, whether you would, first, give us 
your reflections on the state of mind of the leadership of the 
two countries that most worry me anyway, in the region now, 
very different, obviously. One is North Korea and the second, 
of course, is the People's Republic of China, with which we 
have ongoing comprehensive relations, and we try very hard to 
manage our relations in a constructive way. The North Koreans, 
of course, are in a very different place.
    General Thurman. Thank you, Senator.
    I have the same concerns going in. I believe Kim Jong Il is 
an unpredictable leader. He continues to antagonize through his 
coercive diplomacy to protect his nuclear capability, I 
believe. There is no question there is a deteriorating economy. 
Reports I have read is there is a food shortage.
    I think he will continue this cycle of provocations. I 
believe it is important for us to work closely with the ROK, 
their military, to counter these provocations in a responsible 
manner.
    Having said that, I think it is very important for us to 
also maintain relations with China. I intend to work close, if 
confirmed, with Admiral Willard, the U.S. Pacific Command 
Commander, as we look at and assess the whole security posture 
and stance, particularly on the peninsula.
    Senator Lieberman. Thanks, General. Thanks to the three of 
you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    First of all, I want to say we are blessed and grateful to 
have the service of all three of you for our country. I want to 
thank your families and all that have served underneath you for 
what you have done. We have great confidence in all of your 
qualifications.
    I wanted to ask Vice Admiral McRaven, in your advance 
policy questions, you were asked what are the weaknesses and 
shortcomings in the current effort to combat terrorism and 
insurgency in Afghanistan. In one of your answers, you said, 
``Those weaknesses and shortcomings will arise not from the 
strategy or the efforts of our soldiers, marines, airmen, and 
civilians on the ground, but from diminished resourcing, lack 
of long-term commitment, and any decrease in international 
assistance.''
    Vice Admiral, can you elaborate for me what you meant by 
that statement in terms of the concerns about diminished 
resourcing or lack of long-term commitment?
    Admiral McRaven. Yes, ma'am. This is basically focused on 
what we refer to as the enablers. For us, special operations, 
to continue to be successful in Afghanistan is going to be a 
function of ensuring that we continue to have the airlift we 
need, the rotary-wing support, the fixed-wing support, the 
intelligence, surveillance, and reconnaissance (ISR) in terms 
of unmanned aerial vehicles.
    That is the aspect of the support that is critical now and 
for the long run in order for special operations to be 
effective.
    Senator Ayotte. Does the President's recent withdrawal 
announcement, in your view, impact the lack of a long-term 
commitment--one of the issues that you raise?
    Admiral McRaven. No, ma'am. I would contend it doesn't 
affect SOF directly. The reason it doesn't is because it is a 
function of how you balance the withdrawal.
    Again, in discussions with General Allen and General 
Mattis, I will make it clear that as General Allen looks at 
that withdrawal, that he takes into consideration the critical 
enablers necessary to continue to support special operations 
across the battlefield. While it is not just about the direct 
action piece, which is important--and in my former role as a 
JSOC commander, that was vitally important--but it is about all 
the other enablers that support the broader SOF effort in 
Afghanistan.
    Senator Ayotte. Are there any other concerns you have about 
diminished resourcing, based on what you highlighted in your 
statement, that we should be aware of?
    Admiral McRaven. No, ma'am. Again, the two primary ones are 
the airlift support and the ISR support.
    Senator Ayotte. Thank you, Admiral.
    Lieutenant General Allen, the fighting season in 
Afghanistan is roughly from April through October. The 
President has decided on September 2012 as the deadline for 
withdrawal of the surge forces. Is there any strategic, 
operational, or tactical advantage to a September deadline for 
withdrawal during the fighting season, as compared to waiting 
through the fighting season?
    General Allen. Senator, I think that the value of a second 
fighting season, as was expressed by the Chairman and General 
Petraeus in their testimony last week, is important. But as 
General Petraeus said in his recommendations, those 
recommendations are forwarded to the CENTCOM Commander, 
ultimately to the Secretary of Defense. The discussions, which 
ultimately generated the President's decision, account for the 
President's unique role and unique position in terms of his 
national security views and his views as President of the 
United States and the Commander in Chief.
    He has made the decision at this juncture with respect to 
when the end of the drawdown of the surge forces should occur. 
We support that decision. We will implement that decision. We 
are in the planning process for it now, Senator.
    As I said before to Senator Lieberman, it is my intention, 
obviously, as the commander to monitor the progress, the 
operational environment, the progress, and the situation with 
respect to the accomplishment of our objectives and missions 
respect to the campaign plan. Should I become concerned that 
our ability to accomplish those objectives are threatened, I 
will ensure that I give forthright and prompt advice to the 
chain of command.
    Senator Ayotte. We deeply appreciate that, General. I just 
wanted to follow up, just so I am clear. I certainly appreciate 
the President's unique role as Commander in Chief. But in your 
view, is there any strategic, operational, or tactical reason 
to withdraw in September versus at least allowing us to finish 
the fighting season?
    Because you are going to be in the middle of the fighting 
season. Can you think of any reason of a strategic nature or 
operational nature why we would withdraw then?
    General Allen. Senator, again, the forces that are at work 
during that particular time are not just about the presence of 
U.S. forces on the battlefield. Even as those forces come down, 
we will still have some portion of the surge throughout most of 
the fighting season.
    We will have the 68,000 U.S. forces that will be persistent 
in the presence, tens of thousands of ISAF forces, about 50,000 
more Afghan national security police and army forces, and some 
20,000 or so Afghan Public Protection Force. They will all be 
joining the fight. They will all become part of the process 
during that period of time.
    Again, the President was presented recommendations by the 
Commander of ISAF, forwarded by the CENTCOM Commander, and the 
discussions were held in the White House, and the President 
applied his view ultimately as the President of the United 
States and the Commander in Chief and made the decision.
    Senator Ayotte. I appreciate that, General. I understand 
that you didn't participate in those discussions, but their 
recommendations were different than the ones that the President 
adopted in terms of timing after the fighting season. Is that 
right?
    General Allen. The Chairman said that the President's 
decision was a bit more aggressive than was recommended.
    Senator Ayotte. One of the concerns with a more aggressive 
recommendation, of course, is, as Senator McCain has outlined, 
given the progress we have made in Afghanistan, that that 
progress, we could see a regression of that progress. Is that 
right?
    General Allen. We are going to take advantage of the 
opportunity between now and the end of the year to assess where 
we are with the progress of the campaign. We have made really 
spectacular progress in the south. I wish all Americans had the 
opportunity to see the great work that has been done by the 
forces at work, ISAF forces in the south and southwest.
    We are going to consolidate that progress and, at some 
point, take other actions, which I won't get into the great 
details here. But we will take other actions as necessary. The 
President's decision will be accounted for, obviously, in the 
planning that will go forward. We anticipate that we will 
continue to achieve the objectives of the campaign.
    But we must account for the decisions that the President 
has made, and we will go forward with those--accounting for 
those decisions, we will go forward with every intention of 
accomplishing the objectives. We believe that can be done now, 
and we are moving forward with the planning with the ISAF staff 
now.
    Senator Ayotte. General, I want to thank you for your 
testimony. My time is up.
    I had the opportunity as a new Senator to go to Afghanistan 
in January, and I was very impressed with the progress that has 
been made. I remain concerned and appreciate the challenges 
that you face with having to withdraw a significant number of 
our troops during that fighting season.
    Thank you for your testimony.
    General Allen. Thank you, Senator.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your presence, and I 
want to associate myself with the remarks of my colleagues on 
the dais as to your service and particularly acknowledge your 
families who are here, and what wonderful Americans.
    General Allen, if I could turn to you, and I know you are 
going to have some challenges. You have a leadership record 
that is exemplary. But I would like to focus on some specific 
items today that I hope then gives us an understanding of your 
priority and needs.
    In that spirit, let me turn to the success that you had and 
we had in Anbar, in Iraq. You reached out to a population that 
had been previously pretty hostile and worked with them to then 
turn their focus to al Qaeda and the elements of terrorism that 
had really created enormous chaos. In the process, the COIN 
doctrine was validated.
    I don't want to imply that the two countries are alike. But 
could you talk about the primary lessons that we learned in 
Anbar and how we are going to apply those lessons in 
Afghanistan?
    General Allen. Senator, much of what was accomplished in 
the Anbar Province, of course, needless to say, much of it was 
accomplished on the shoulders of the sacrifice of many terrific 
soldiers, marines, sailors, and airmen. We honor that service 
and their sacrifice in having accomplished that really 
remarkable outcome.
    But what was accomplished in the Anbar Province was really 
the result of a comprehensive civil-military counterinsurgency 
strategy. It was a strategy that leveraged every aspect of 
military capacity that could be brought to bear in the battle 
space, civil affairs, conventional military capabilities, 
advisory capacity to build the Iraqi police, the Iraqi Security 
Forces, the two divisions of Iraqi infantry that we had.
    Special operators, who worked both as advisers and mentors, 
but also, euphemistically, the term ``black SOF'', the strike 
forces that would enter the battle space to attack the 
insurgent network. We pressurized the insurgent network 
constantly.
    While we were pressurizing and shredding the insurgent 
network and blunting their capabilities with the use of 
conventional forces, we worked very hard to build the capacity 
of the Iraqi Security Forces, both the army--those two 
divisions--and we went from about 4,000 police to almost 30,000 
police in the year that we were there, in 2007 and 2008.
    All of that was complemented by a comprehensive plan with 
respect to civilian outreach as well. The U.S. Agency of 
International Development resourced three embedded provincial 
reconstruction teams (PRT) and resourced our PRT, our 
provincial PRT in Ramadi. I believe that the wise outreach to 
the sheiks in the tribe, the wise expenditure of tax dollars 
with respect to both the stabilization projects and development 
projects, our efforts to build governance capacity, where the 
governance has been completely shattered as a direct result of 
the efforts of al Qaeda and other of the insurgent efforts, 
that comprehensive effort paid off in the end.
    It built up governance which had the capacity to stand up 
on its own two feet and extend the writ of the provincial 
government out into the districts and down to the 
municipalities and even to the tribes. It incorporated the 
tribes into the solution rather than have the tribes be on the 
outside of governance and part of the problem.
    It ultimately built the capacity for the people of that 
province, the beleaguered people along the Euphrates River to 
ply their trade, to engage in economic development. That, in 
conjunction with the persistent governance, all overwatched by 
U.S. forces, but eventually overwatched by Iraqi Security 
Forces, provided the trade space necessary ultimately for the 
persistence of governance and the success, frankly, that we 
have seen in the aftermath in the Anbar Province to this very 
moment, sir.
    Senator Udall. Let me jump to Afghanistan in that context, 
General. We have been talking here about the withdrawal numbers 
and the concern that some have about the effect on the fighting 
season next year. I know we have a full complement for this 
fighting season.
    Do you think you are going to have to shift to a 
counterterrorism (CT) model, or can you blend the two 
strategies? I know we throw those acronyms around casually. But 
can CT and COIN be implemented simultaneously in different 
provinces depending on the needs of those populations and the 
strategy that you have in place?
    General Allen. Indeed, Senator, it is occurring now. There 
is an active counterterrorism capability that is underway 
within the larger counterinsurgency campaign.
    As Vice Admiral McRaven knows so well from his time as JSOC 
and our task force commander in the CENTCOM, the capabilities 
of those strike forces have really been spectacular in getting 
at the enemy's network. As well, the use of SOF, as I 
previously mentioned, will have an important role in developing 
the training, supporting the training of the Afghan special 
operators, as well as facilitating ultimately the mobilization 
of the populations in those key villages where the Afghan Local 
Police are being expanded.
    To answer specifically your question, we would see that 
there will continue to be a counterterrorism dimension to the 
overarching counterinsurgency campaign. As time passes, as 
conditions in the battle space evolve, as we approach 2014, and 
as we define our long-term relationship with Afghanistan, we 
may well see that the development of CT will become even more 
important as time goes on. So there will be an important role, 
sir.
    Senator Udall. Would you talk about reintegration? Do we 
have enough formal structure around what we are trying to do 
there? There have been some stories recently that there is more 
we could do, that we have sent some mixed messages to the 
fighters in the Taliban forces who want to come out of the 
cold.
    General Allen. Reintegration is an essential dimension to a 
counterinsurgency strategy. It helps us to begin to decompose 
the base of the insurgency.
    The Afghans ultimately will be responsible for 
reintegration. It is their program. They are ultimately to be 
responsible for accepting these fighters out of the insurgency 
and reintegrating them back into Afghan society.
    To that effect, the Afghan Peace and Reintegration 
Committee has been formed at a national level. There are 
provincial peace committees that have been formed throughout 
the country. In that process, we are working closely with our 
Afghan counterparts to facilitate the reintegration process, 
which ultimately is that local fighters and many of the 
fighters are, in fact, close to their villages, close to their 
homes.
    Local villagers who desire ultimately to leave the 
insurgency and to become part of the future of Afghanistan will 
put down their weapons, renounce violence, sever their ties 
with al Qaeda and the insurgency, and become part of the 
solution, become part of the peace process. In return, the 
village elders and the village benefits ultimately by bringing 
them back into the fold. Through the use of funds, which are 
cycled through the Afghan Government through the Peace and 
Reconciliation Committee councils, projects are performed in 
those villages which benefit everyone, and the quality of life 
improves for everyone.
    So the village leadership vouches for that young fighter 
who has come off the battlefield. They embrace him. They bring 
him back into the community. They make him a reintegrated, 
productive element within the committee. The whole village 
benefits as a result.
    To your question specifically, the issue with respect to 
what we can do better, we are just getting started. The 
infrastructure within the Afghan side is really just beginning 
to gain purchase at this particular time.
    As we recognize as a persistent shortfall in Afghanistan in 
a number of different areas, the ability to flow resource from 
the central government down to the provinces and ultimately 
into the projects for the reintegration program, that is the 
challenge at this particular moment. I know that our civilian 
colleagues are working very closely with their Afghan 
counterparts to improve the ability to get this money on budget 
and get it flowed in an expeditious manner to take advantage of 
the opportunities as these fighters come off the battle space.
    We are at about 1,900 soon of those individuals who have 
formally reintegrated, and there are about 3,000 in the 
pipeline. So getting this process accelerated has the effect of 
providing another option if you are a fighter. You can fight 
U.S. or Afghan forces and potentially be killed. You can fight 
U.S. or Afghan forces or be detained. Or you can put your 
weapon down and become part of the future of Afghanistan, be 
reintegrated into your village, and the whole village will 
benefit because of it. I think that is a pretty stark option in 
reality.
    Senator Udall. Thank you, General.
    My time is expired. General, I look forward to working with 
you, particularly on this initiative because this is the key 
element to bringing our forces home and successfully concluding 
our operations in Afghanistan.
    Thank you.
    General Allen. Yes, Senator. Thank you.
    Senator Udall. Thanks.
    Chairman Levin. Thank you, Senator Udall.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, let me thank each of you for your service and your 
willingness to accept these new challenges.
    General Allen, the people of Maine have paid a heavy price 
for the war in Afghanistan. Our State has suffered the highest 
rate of casualties of any State in the Nation.
    We have seen lots of discussion at this hearing and others 
last week about the number of troops, the pace of withdrawal, 
and the timetable. But I have for you a more fundamental 
question and that is, is there any number of troops that can 
ensure a stable Afghanistan that is going to be able to take 
responsibility for its own security, given the safe havens and 
turmoil in Pakistan and the lack of a competent central 
government that is not plagued by corruption?
    In other words, are these such insurmountable obstacles 
that no matter how many troops we have, for how long, and how 
brave and skilled they are, are those two facts--the safe 
havens in Pakistan, the corruption and incompetence of the 
central Afghan Government--insurmountable obstacles?
    General Allen. Senator, I don't believe so. There are 
challenges. There are significant challenges. Those have been 
explained by both the current ISAF Commander, by the Chairman 
of the Joint Chiefs. But I believe that the campaign, as we 
currently envisage its unfolding, has the development of the 
ANSFs ultimately to be in the lead of security out to 2014 as 
an objective which is attainable, with U.S. forces in a 
strategic overwatch position.
    Your question about the safe havens, it complicates the 
process. There is no question of that. We would recommend to 
our Pakistani friends that they take those measures that are 
necessary to reduce those safe havens because, in many 
respects, those safe havens are not only safe havens that 
generate the opportunity for those insurgent elements to attack 
into Afghanistan, but they have also turned out to be safe 
havens that provide a springboard for the assault directly upon 
the Pakistani Government and the Pakistani military.
    We will encourage and we will continue to encourage our 
Pakistani friends to bring pressure to bear upon those safe 
havens. It is not just good for the outcome of our strategy and 
for the President's vision on the outcome in Afghanistan. It is 
good for Pakistan as well.
    I might add that our relationship with Pakistan, while 
strained at this particular moment, there is a bright spot, 
frankly, in the many different facets of the relationship that 
I will touch. That bright spot is the tripartite planning 
committee, where on a regular basis U.S., Afghan, and Pakistani 
military officers sit down and go through the process of 
planning for how they will conduct cross-border operations in a 
way that limit the operations across the border.
    So there is a bright spot in that regard, and I think it is 
an opportunity for us to continue through that contact to 
leverage our relationship with Pakistan, to emphasize, as you 
point out correctly, Senator, the difficulties that these safe 
havens provide to the accomplishment of our strategy, but also 
how they endanger Pakistan as well.
    To that part of your question that relates to corruption 
and incompetence, we have been partners with President Karzai 
for a long time. In the course of this long-term partnership, 
and in particular in the last couple of years, we have seen our 
civilian colleagues operating within the context of the 
civilian surge, which accompanied President Obama's military 
surge, provide efforts to increase capacity within the Afghan 
Government, within key ministries, to provide better, 
predictable, uncorrupt governance.
    That process has been accompanied by activity within ISAF, 
the formation of Task Force Shafafiyat, which stands for 
transparency in Dari, which is supported by Task Force 2010, 
which seeks to get at corruption and difficulties associated 
with contracting that can create additional corruption, as well 
as Task Force Spotlight, which seeks to control the evolution 
of private security companies.
    There are a number of measures that we have put in place 
through the civilian surge with our colleagues in the embassy, 
through Ambassador Eikenberry and soon-to-be Ambassador 
Crocker, as well as measures that have been put in place 
through ISAF with the task forces associated with corruption, 
that seek to build both capacity, at the same time we address 
the particular issues associated with corruption.
    Today, we do face the dilemma of the safe havens. Today, we 
do work with an Afghan Government that embraces the desire 
ultimately to reduce corruption and increase competency. We 
will remain in close partnership with the Afghan Government to 
get at both of those issues, and we will continue to work with 
the ANSF.
    Even if the safe havens are not reduced, it is our strong 
desire and hope that in the end, as the Afghan Security Forces 
ultimately take to the field in the numbers that we anticipate, 
with the capabilities that we are building into those ANSF 
forces, that they will be able to provide the cover for 
Afghanistan so it can have a secure and stable future.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your service to the Nation and for 
your families' service. Your service to the Army, to the Navy, 
to the Marine Corps, and--Admiral McRaven, because of your 
son--the Air Force. I can get all the principal Services in. So 
thank you very, very much.
    Let me begin with General Allen. You talked very 
eloquently, in response to Senator Collins, about the need to 
work closely with the Pakistanis. Have you had the occasion to 
meet on a regular basis yet or do you intend to meet on a 
regular basis with General Kayani and your counterparts on the 
Pakistani Armed Forces?
    General Allen. Senator, I have met General Kayani on a 
number of occasions. It is not a relationship yet. That, I hope 
to develop. It is, in fact, the intent for General Petraeus and 
I, should I be confirmed, to pay a call on General Kayani so 
that the relationship that he has enjoyed with General Kayani 
can ultimately be passed to me.
    I look forward to the opportunity to work closely with 
General Kayani and the senior Pakistani military leadership in 
partnership, in the context, as I said before, of the 
tripartite planning committee because, in the end, we have so 
many common objectives that we need to get after. I look 
forward to that opportunity to work with the Pakistani 
military.
    Senator Reed. I think from your comments, General, from 
both sides, their perspective and our perspective, it is a 
complicated and sometimes frustrating relationship. But it is a 
relationship that is essential to our continued operations in 
Afghanistan. I would commend your efforts and urge you, as 
General Petraeus has, to establish at least lines of 
communication to the leadership.
    There is another aspect, too, that you touched upon in your 
testimony. That is the development of the Afghan National 
Security Forces. In the several visits I have made there, they 
have made some progress over the last year, after 7 or 8 years 
of fits and starts and not being particularly impressive. But I 
think over the last few years, we have gained momentum.
    It seems to be one of the major building blocks of our 
strategy, our reduction is really almost directly related to 
their ability to field competent forces. I wonder if you might 
comment briefly, if you already had, on that aspect.
    General Allen. It is central to the strategy, Senator. As 
you correctly point out, as we have developed the real capacity 
in the last couple of years--and here I must mention Lieutenant 
General Bill Caldwell and his terrific team in both Combined 
Security Transition Command-Afghanistan (CSTC-A) and NATO 
Training Mission-Afghanistan (NTMA), for the work that they 
have done. It has been a comprehensive approach with respect to 
the development of the Afghan National Army and the Afghan 
National Police.
    He has put in place a number of training initiatives that 
are paying big dividends, not the least being literacy 
training. Where in a country where the literacy, depending on 
statistics, varies between 10 percent and 20 percent, it is not 
surprising that many of those who seek to be soldiers or police 
are illiterate. That alone has given the members of the ANSFs a 
different feel about who they are and the role that they could 
potentially play in their country.
    That, plus many of the other initiatives which are 
underway, which are gaining purchase now and traction, leave me 
confident that our end state, which is an Afghan Security Force 
which has both capability and staying power, will be successful 
in the end.
    It is not just about NTMA and Bill Caldwell's efforts. 
General Rodriguez in the ISAF joint command and all of our 
conventional forces on the ground that are so closely partnered 
with Afghan units in the field have become also vital to this 
process as well, the professionalization of units, as well as 
the individual preparations of Afghan national security police 
and army troops in the training pipeline as well, sir.
    Senator Reed. Thank you, sir.
    Admiral McRaven, again, like all of my colleagues, I salute 
you, your colleagues, and the SEALs for extraordinary 
operations, and thank you. I think your decisiveness and your 
feel for every level of the conflict, from the villages of 
Afghanistan and Pakistan all the way up here to the more 
complicated rooms in Washington was amply demonstrated.
    Thank you for your service.
    Admiral McRaven. Thank you, sir.
    Senator Reed. Let me touch on a point I am sure has also 
been raised. You have a force that is small, very select, can't 
expand overnight because of criteria, can't be lowered to 
accommodate size. It is under significant pressure after 10 
years.
    Your efforts in Afghanistan and Pakistan are significant, 
but you also look to other places--Yemen particularly of 
concern at the moment; Somalia, there is indication of 
operations there.
    Then just a further point is that you, I think, will be, as 
we go forward, strategically the force that is called upon sort 
of right out of the box, if you will, which is a change, a 
slight change in strategic thinking. Given this, the pressure 
on your SOCOM, your comments about what we have to do to give 
you the resources.
    Are you prepared and capable to expand your operations at a 
moment's notice worldwide or in different parts of the world? I 
would appreciate your comments.
    Admiral McRaven. Yes, sir. Thank you, Senator.
    We are not prepared to expand immediately worldwide. The 
problem, as you point out, is that it is very difficult to grow 
SOFs overnight.
    Admiral Olson, in his capacity as Commander of SOCOM, has 
gone on record as saying that he wants to try to grow the 
manpower within SOCOM at the rate of about 3 percent to 5 
percent per year, which I think is about right as well.
    Part of this is making sure that the standards that we have 
set at our various special operations training elements for the 
special forces officers, the SEALs, the marines, and the 
aviators remains very high. We don't want to come off those 
standards because, at the end of the day, the American people 
expect us to put forth a world-class special operations 
operator.
    I think expanding the force rapidly will be difficult. One 
of the greatest challenges I think we will have for the future 
is there will be a greater demand on SOF. As we have talked 
about today, intuitively, we think as the drawdown occurs in 
Afghanistan in terms of the conventional force, there will 
probably be some additional requirements for SOFs to cover 
down, if you will, in Afghanistan.
    I don't think we know exactly what the size of that will be 
yet. I think these are going to have to be discussions between 
myself, if confirmed, General Allen, General Mattis, and the 
Secretary to find out what is the right amount of forces we 
need to put into Afghanistan.
    As we look out from Iraq, Afghanistan, and, frankly, across 
the globe, and, as you are well aware, sir, SOFs any day of the 
year are in about 60 to 80 countries around the world. 
Sometimes in very small numbers, but those small numbers can 
have very large effects in other areas. They are building host 
nation capacity, hopefully putting forth those values, those 
American values that the other forces can see and want to 
replicate. Frankly, that allows us to kind of get ahead of some 
of the conflict in other countries.
    As we look at the hotspots in Yemen, where you have al 
Qaeda in the Arabian Peninsula, or Somalia, where you have East 
African al Qaeda and al Shabaab, these are clearly areas of 
concern. We are looking very hard right now--at least from my 
standpoint as a former JSOC commander, I can tell you we were 
looking very hard at Yemen and at Somalia.
    Our shortfall, as always, in a lot of these areas, for 
kinetic strikes is always our ISR, our unmanned ISR or our 
manned ISR. It is a critical enabler for us to be able to do 
our mission if it is a direct action mission.
    However, having said that, I will tell you that both 
CENTCOM and U.S. Africa Command have been terrific about kind 
of apportioning that ISR as required, depending upon the 
missions that pop up. To get to the crux of your question, sir, 
it will be difficult to expand, manpower wise. I think any 
expansion of manpower is going to have to come with a 
commensurate expansion of the enablers.
    Senator Reed. Thank you very much, Admiral. My time is 
expired.
    General Thurman, let me just congratulate you on a great 
service to the U.S. Army, and I look forward to working with 
you, should you be confirmed.
    You are all very correct about that term, but I have a 
certain hope for all of you gentlemen. Thank you.
    General Thurman. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    It's good to see you all, and congratulations to you and 
your families.
    General Allen, something that has always bothered me is the 
lack of other countries fulfilling their commitment with regard 
to helping train and get up to speed, the Afghan army and 
police. How do you think that with the current shortfall of 
about almost 500 institutional trainers, the withdrawal of 
10,000 troops will affect that training mission?
    General Allen. We will continue, Senator, to ask our 
partners for trainers. We are going to continue to work, if I 
am confirmed, through NATO and through ISAF, to the non-NATO 
troop-contributing nations to continue to provide the kinds of 
trainers necessary to build the capacity of the ANSFs that we 
all need in the end to accomplish our objective.
    It is no secret that has been difficult to do. It is no 
secret that we have made it very clear. The current commander 
has made it very clear, the current Supreme Allied Commander of 
Europe, Admiral Stavridis, and the NATO leadership has made it 
very clear that we need more trainers. As you are correct, 
Senator, we are still short about 480 trainers.
    If confirmed and if I become the Commander of ISAF, I will 
continue to emphasize that we have to have trainers in order, 
ultimately, to bring to bear the kinds of quality training in 
the velocity that we need in order to get this ANSF stood up.
    Senator Brown. Is it a higher level? Does it go to the 
President's level where he goes to the other leaders and says, 
``Listen, in order to get out of here, we need to train these 
folks and get them up. And you made a commitment.''
    It seems like we have been making that request forever, but 
there hasn't been a heck of a lot of return, reciprocity in 
providing them.
    General Allen. Senator, I can't speak to whether the 
President has asked that question specifically. But I know the 
Secretary of Defense, this Secretary, has been unambiguous in 
calling on NATO and the other non-NATO troop-contributing 
nations to provide trainers.
    If confirmed and I become the Commander of ISAF, I will be 
unambiguous in that requirement as well. I believe Admiral 
Stavridis has been beating that drum very loudly and regularly, 
sir.
    Senator Brown. What do you think the ratio is? Is there a 
ratio between trainer and trainee that works? Are we at that, 
or how far below are we on that?
    General Allen. I would have to get back to you on that, 
sir.
    Senator Brown. If you wouldn't mind, that would be helpful.
    General Allen. I would be happy to.
    [The information referred to follows:]

    The current overall coalition trainer to Afghan National Security 
Force (ANSF) trainee ratio is approximately 1:14, which is sufficient 
to produce the Army combat and police formations required for the 
Afghans to transition to security lead. However, the critical shortage 
of 65 air coalition trainers hinders the development of the Afghan Air 
Force (Mi-17 and C-27 pilots). The Afghan logistics and medical systems 
are also short trainers, but these have been identified and are 
scheduled to be ``boots on the ground'' by the end of the year. This 
should allow the North Atlantic Treaty Organization (NATO) Training 
Mission-Afghanistan (NTM-A) to reach the ANSF growth objective of 
352,000 by October 2012 and should complete the training and fielding 
of the Afghan Army and Police by December 2013. Additionally, NTM-A is 
training and certifying Afghan trainers to be able to take the lead for 
basic training of army and police. The goal by the end of 2011 is to 
have 4,400 Afghan trainers to assume the lead for training to allow 
coalition trainers to shift focus to professionalizing the force and 
developing systems that will endure past transition at the end of 2014.

    Senator Brown. How about the flexibility? Do you think you 
have the flexibility you need to keep the enemy on its heels 
and also train the Afghan Security Forces from now until the 
end of the summer? Even though the enemy now has the timeline 
for our departure, does it affect those two things at all?
    General Allen. I believe we do have the flexibility.
    Senator Brown. General Thurman, in looking at your new job, 
when you are confirmed, how do you deal with a lot of the 
insecurity over there?
    Let us say, hypothetically, that North Korea makes another 
probe and tries to instigate things, and South Korea responds. 
What role, then, do we play? How do you envision that 
potentially working out?
    General Thurman. Senator, thank you.
    I think the number-one point is we have to maintain a 
strong presence on the peninsula. There is no question, based 
on what I have reviewed, that the ROK military is a very 
professional and competent force.
    I think the other important point is making sure that all 
our plans that we have are current, they are exercised 
frequently, and we have the right training programs in place. I 
think the other important thing is maintaining the alliance and 
continuing the transformation efforts.
    If confirmed, I fully expect to look at and review our 
capabilities and make sure they are the right capabilities and 
we are positioned properly to support any type of aggression. 
But I do feel it is very important to maintain a strong 
presence with our Korean partner and continue to work close 
with them and to make sure that we have the right strengths and 
can counter any type of aggression.
    Senator Brown. Thank you.
    Back to you, General Allen, I agree with the chairman when 
he was talking about our relationship with Pakistan. I also 
feel, we have given them $4 billion, and yet sometimes we don't 
know if they are in or they are out. Are they with us, are they 
not?
    How do you view your role in dealing with that situation 
over there, that country building or country pushback? What do 
you think your role will ultimately be, if any?
    General Allen. I think there is a role, Senator. The role, 
as has been demonstrated by both General McChrystal and, after 
him, General Petraeus, was to seek ways and opportunity across 
the border with the Pakistani military to try to have effect 
upon the nature of the border, the safe havens, those elements 
of the insurgency where we can focus our efforts.
    General Petraeus has established, I think, a productive 
relationship with General Kayani. I hope to follow in that 
process where, leveraging the role of the ISAF Commander, we 
can continue to place the kind of emphasis that we need to with 
the Pakistani Government, the Pakistani military to continue to 
pressurize those insurgent safe havens.
    In the end, it is a decision that they will make. But in my 
role as the operational commander, I am going to leverage every 
possibility that I can for cooperation across the border, to 
build habits of cooperation, habits of partnership. Hopefully, 
from there, as we continue to evolve our relationship overall 
with Pakistan, this will be a mechanism that can provide a 
bright spot for additional cooperation later. I think here is 
an important opportunity with Pakistan.
    Senator Brown. Thank you, sir.
    Admiral McRaven, I noted that you said that there is some 
fraying at the edges, potentially, with everything that is 
happening, and that is rightly understandable. It is not like 
you can, all of a sudden, just press the button and you get a 
special ops guy ready--or gal ready to go. What do you 
anticipate trying to do to deal with that problem?
    Admiral McRaven. Yes, sir. In fact, Admiral Olson has put 
together a Pressure on the Force Task Force and has done really 
an amazing job of getting out to the various operational units 
to talk to the soldiers, sailors, airmen, marines, their 
families, to find out what are the stresses on the force. That 
task force is continuing to gather its data and information. If 
confirmed, I will come in, take the recommendations of that 
task force and then aggressively pursue programs that make 
sense in order to take care of the families and their soldiers.
    We have to take a hard look at not just making sure that 
this force is sustainable for the next couple of years, but 
what is it going to look like in 5 years, in 10 years, in 15 
years. If we don't get ahead of this and if we don't get on top 
of the concerns and the pressures that are on the families and 
the soldiers, I have great concerns about what this force will 
look like 10 years from now.
    Senator Brown. Great. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Brown.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Again, thank you all for your willingness to serve. Like 
many of my colleagues here, I anticipate and hope that you are 
all confirmed and look forward to your additional service to 
this country.
    First, General Thurman, let me ask you, if I can, I know 
the President has delayed the transition of operational control 
(OPCON) of South Korea I think until 2015. If you could give me 
some thoughts of your understanding how this additional time 
will allow the United States and the Republic of South Korea to 
conduct a successful transfer.
    Can you give me kind of a feel? It has been delayed, but 
what does this mean?
    General Thurman. Yes, sir, Senator. Based on what I have 
been briefed on, it was delayed until 2015. There has been a 
Strategic Alliance 2015 that was agreed upon by our Secretary 
of Defense and the South Korean Minister of Defense. It was the 
two Presidents that agreed to delay the OPCON transition.
    What I believe is this allows the ROK military to continue 
to transform their efforts. They have several transformation 
efforts ongoing. They are a highly capable and competent force.
    What I have reviewed, there is a timeline and a set of 
well-defined milestones through the exercise program that will 
get us on the road to OPCON transition in 2015. If confirmed, I 
will review the Strategic Alliance 2015 and those milestones 
and work closely with the ROK Chairman and the ROK Minister of 
Defense and the ROK military to help progress them along on 
that timeline.
    Senator Begich. Let me also ask you, I know you have heard 
a little bit of discussion--this is more of a yes or no. But if 
you want to expand, feel free. The security concerns and fiscal 
realities that you have heard some questions already on the 
feasibility on tour normalization.
    Assuming you are confirmed, are you willing and obviously 
going to reexamine the plans for the tour normalization and how 
that all will work in the future?
    General Thurman. Senator, if confirmed, I will review the 
overall concept of tour normalization. I am well aware of the 
fiscal constraints we are under as a Nation. I am also aware of 
some of the proposed legislation that has been perhaps 
provided, if the National Defense Authorization Act is 
approved.
    I will work very close with the Department of Defense and 
this committee to make sure that we are doing the right thing 
and to make the recommendations.
    Senator Begich. Very good. Thank you very much.
    I will look forward to that as it progresses. Assuming we 
actually pass an authorization bill, that will be good, and it 
will have some guidance, hopefully. So thank you.
    If I can, Vice Admiral McRaven, this year the Cold Weather 
Maritime Training Facility will be built in Kodiak, AK, which, 
of course, we would invite you to Kodiak--not in the summer, 
but in the winter because that gives you great extra points, to 
be frank with you.
    Admiral McRaven. Yes, sir.
    Senator Begich. But Kodiak is a great place. You have 
answered this a little bit already through your conversation 
with other members, but how important is facility 
infrastructure investment really for the readiness that you 
need for your special operations?
    Admiral McRaven. Yes, sir. I will tell you, the Kodiak cold 
weather training facility is kind of a great topic to look at 
in terms of the effect on the operators and then, frankly, the 
rest of the infrastructure across SOF.
    But right now, when SOCOM was stood up, the legislation was 
passed in 1986 and really got going in 1987, a lot of the 
military construction (MILCON) that was in place--when the 
money flowed from the Services, a lot of the recapitalization 
money for a number of the MILCON projects did not flow with 
that.
    Now, 24, almost 25 years into SOCOM, we have a number of 
facilities out there that are in need of repair or, in fact, we 
need new facilities. I know Admiral Olson has come forth in his 
posture hearing and made it clear that he is looking for 
additional support from Congress in order to recapitalize some 
of this infrastructure.
    As with any force, sir, our readiness is a direct 
reflection of the amount of equipment and infrastructure we 
have to do the job, to train with both in garrison and forward. 
The infrastructure is critical to our special operations 
operators.
    Senator Begich. As you review that--again, assuming you get 
confirmed--I am assuming you will share your analysis on where 
those gaps are and prioritize those based on funding.
    Sometimes around this place, the funding occurs based on 
who yells the loudest. But my view would be what is the most 
critical elements of infrastructure investment that is 
necessary for your operations to continue at the level you are 
at, plus, obviously, growing itself?
    Admiral McRaven. Yes, sir.
    Senator Begich. Great.
    Admiral McRaven. Thank you.
    Senator Begich. One other piece. You had mentioned--I may 
be abbreviating this--you called it the something-something 
stress task force?
    Admiral McRaven. Yes, sir.
    Senator Begich. What is the timetable that you anticipate 
some results? The reason I say this, for all the reasons, I 
want to echo what you said. That is the readiness of our forces 
and the impacts on them as individuals and the families that 
are being impacted because of the amount of deployments and the 
speed. What is your timetable, do you think you might have?
    Admiral McRaven. Sir, the Pressure on the Force Task 
Force----
    Senator Begich. There we go.
    Admiral McRaven.--that Admiral Olson has implemented has 
been in place for many months now. They have gone around the 
country talking to the special operations operators and their 
families.
    Having said that, we have had a number of programs at all 
the units in place for quite some time. The units, down to the 
O-5 level, to the lieutenant colonel and the commander level, 
have programs supported by SOCOM to take care of the families 
and the operators.
    The real question I think for SOCOM is, is that enough? I 
think as the Pressure on the Force Task Force begins to look at 
what 10 years of fighting has done, we realize that the current 
programs are not enough. We have a number of programs that are 
being implemented daily across the force. But we think, based 
on the results coming back from this task force, that we are 
going to need to apply additional resources to support the 
families and the soldiers.
    Senator Begich. Will you share that with us?
    Admiral McRaven. Absolutely, sir.
    Senator Begich. Okay. My time is expired, but I want to end 
with one question to Lieutenant General Allen, and that is the 
whole issue of corruption in the Karzai Government. You seem 
optimistic. I don't, to be very frank with you. It seems it has 
gotten worse.
    I was there a year and a half ago, maybe longer now, 2 
years ago. Again, time flies around this place. But without 
solving the corruption issue, from Karzai down, how are we ever 
going to get the system--and you talk about reintegrating 
people back in--the peace and reconciliation committees and the 
cash flow that goes through there. But the corruption is layer 
upon layer upon layer, generational upon generational upon 
generational.
    Give me some thoughts on how that is ever going to get 
resolved because, honestly, it seems like every dollar we send 
over there, everyone is taking a piece of it until it gets to 
the end, and there is very little then utilized for the 
Services. I will say it here, as I have said publicly, I think 
from the Karzai Government on down, he is not exempt from this.
    Give me your thoughts on how we are dealing with a corrupt 
government and a corrupt system. There is the easy question for 
the day. [Laughter.]
    General Allen. Thank you, Senator.
    It is a daunting problem, as you have indicated. But we are 
working closely with the institutions of government that are 
emerging, seeking to create patterns of conduct, systems of 
accountability, the process of responsible budgeting, the 
execution of the budget, accountability within the execution of 
the budget, in ways that can reduce these problems associated 
with corruption.
    It is an effort with which we will, if I am confirmed as 
Commander of ISAF, I will partner very closely with Ambassador 
Crocker in his efforts and his great civilian team. I will work 
very closely with Ambassador Simon Gass, who is a senior 
civilian representative of NATO, and other elements within the 
interagency to do all that we can to build capacity which holds 
people accountable, that creates systems and provides 
mechanisms for predictability and accountability within the 
government.
    But it is a problem, Senator. You have correctly identified 
that as a difficulty. Corruption, of course, is corrosive to 
any democratic process and any hope of democracy. It is our 
very strong hope that in partnership with the Afghan 
Government, we can get at this issue.
    Senator Begich. Thank you very much.
    Again, I want to thank all of you for your willingness to 
serve and to your families that I know are the backbone to your 
service. So thank you all very much.
    General Allen. Thank you, sir.
    Chairman Levin. Thank you, Senator Begich.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I want to compliment the President for making the 
selections of each of you. You are good choices by the 
President.
    These hearings are not so much about getting you confirmed 
as it is about allowing us to understand what we can do to help 
you and what your challenges are. I am completely okay and very 
much support the idea of civilian control of the military. I 
think that is essential. That is what has made America great 
for all these years.
    But politicians are accountable to the voters. The generals 
are accountable to their troops, to their chain of command, and 
to Congress. I just want to make sure those of us who make 
decisions in politics that affect the war, that we are 
accountable. If it turns out well, we get the credit. If we 
have done some things to undermine the effort, then people will 
notice where the blame lies. That is my view of what we are 
trying to do here in the next few months.
    Admiral McRaven, is Mullah Omar in Pakistan?
    Admiral McRaven. Sir, we believe he is.
    Senator Graham. Okay. Let us just stop for a second. We 
believe that the leader of the Taliban after the fall of the 
Russians, Mullah Omar, who invited bin Laden to come in to be 
the honored guest in Afghanistan, who empowered Osama bin Laden 
to attack the country, is still in Pakistan.
    Do we believe he is there with the knowledge of the Inter-
Service Intelligence and the upper echelons of the army?
    Admiral McRaven. Sir, I believe that the Pakistanis know 
that he is in Pakistan. Whether or not there is a----
    Senator Graham. Let me ask you this. If they tried for 
about a week, do you think they could find him?
    Admiral McRaven. Sir, I can't answer that question. I don't 
know whether they could or not because I don't know exactly 
where Mullah Omar is.
    Senator Graham. Have we asked them to find him?
    Admiral McRaven. Sir, I believe we have.
    Senator Graham. I am asking. I think that Senator Levin and 
I both will ask together today. We are asking the Pakistan 
Government to help us find Mullah Omar, who has tried to 
destroy Afghanistan, who has formed an allegiance with al 
Qaeda.
    Along those lines, General Allen, are we certain that IEDs 
being used against American troops in Afghanistan and coalition 
forces in general are coming out of Pakistan?
    General Allen. Senator, I believe, yes, we are.
    Senator Graham. As a matter of fact, we have given the 
Pakistanis information about buildings where we can see these 
things being put together. Is that not true?
    General Allen. That is correct, sir.
    Senator Graham. Have they responded effectively?
    General Allen. They have not, sir.
    Senator Graham. Okay. I am with Chairman Levin on this. 
This has to stop.
    Now let us talk about corruption. Have you read the article 
that has come out--I know you have been busy--about the Afghan 
head of the Central Bank flees to the United States--Central 
Bank chief flees to the United States? Are you familiar with 
that at all?
    General Allen. Sir, I have read many articles at this 
juncture about that issue.
    Senator Graham. I know. I know you----
    General Allen. I don't recall that one specifically.
    Senator Graham. I would like to put this in the record, if 
I may, Mr. Chairman?
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Graham. I am convinced. I met with the gentleman 
when I was over there, as Senator Graham, and I met with him 
extensively. He went to the floor of the Afghan parliament, and 
he started naming names about Kabul Bank, about who was 
involved in setting up this bank. The bank was used to pay 
Afghan Government bills, depositing coalition currency as well 
as Afghan currency.
    The International Monetary Fund (IMF) called it the biggest 
abuse or rip-off of a bank they have ever seen. For the IMF to 
say that, that is something because they have seen a lot.
    I want to associate myself with Senator Begich. I really do 
believe that they are trying to cover up, the Karzai Government 
and other people in Afghanistan are trying to cover up the 
extent of the fraud and manipulation in this bank.
    General Allen, I would ask you to report back to us as soon 
as you can, to the committee, about your view of the Kabul Bank 
situation and how it affects our efforts to stop corruption.
    General Allen. I will, Senator.
    [The information referred to follows:]

    The level of corruption across Afghanistan's public and private 
sectors represents a threat to the success of the International 
Security Assistance Force (ISAF) mission and the viability of the 
Afghan state. The issues we have seen at Kabul Bank are representative 
of the problems we face as we seek to enhance transparency and reduce 
corruption in Afghanistan. While other agencies have the lead on Kabul 
Bank, I agree that we must support the International Monetary Fund 
(IMF) as it works with Afghan authorities to address the prior actions 
they stipulated as necessary to establish a new assistance program. 
These actions include resolving the issues related to Kabul Bank as 
well as addressing broader weaknesses in the Afghan banking system. 
While the Afghan Government has taken some positive steps forward, 
additional progress on the IMF prior actions is essential to restoring 
public and international confidence in Afghan financial institutions.
    As the Kabul Bank situation highlights, we must continue to work 
with Afghan leaders to insulate critical institutions from criminal 
capture and support efforts to investigate and prosecute criminals that 
divert development and security force assistance; obstruct justice; and 
engage in or protect illicit activities that strengthen the insurgency 
and undermine the legitimacy and effectiveness of the government. In 
coordination with the international community and in support of the 
Afghan Government, ISAF's Combined Joint Interagency Task Force-
Shafafiyat leads ISAF's effort to foster a common understanding of the 
wider corruption problem, plan and implement ISAF anti-corruption 
efforts, and integrate ISAF anti-corruption activities with those of 
key partners. This is done to support the development of what President 
Karzai has called an ``active and honest administration'' in 
Afghanistan.

    Senator Graham. Thank you.
    Now let us talk about counterinsurgency. I have learned 
more about this than I ever thought I would know. As a military 
lawyer, I find the whole concept fascinating.
    Since December 2009 to now, I want, from my point of view, 
the country to know that I believe that General Petraeus and 
all under his command--Admiral McRaven, all of your forces--
have done a fantastic job of going from defense to offense, 
that the 33,000 surge forces have been used effectively and 
that we have really put the enemy on the run in many places.
    My question, General Allen, if we withdraw the 33,000 by 
September of next year, will this still be a counterinsurgency 
operation? Does the math work out? Will there be enough people 
left behind next year to effectively do counterinsurgency?
    General Allen. I believe there will, Senator.
    Senator Graham. Okay. Now walk me through that. If we 
needed 33,000--if 70,000 wasn't enough and we had to add 33,000 
to make this a counterinsurgency mission, next summer how can 
we maintain counterinsurgency if all the surge forces have 
gone? Have we improved that much?
    General Allen. I think the surge forces, Senator, are a 
part of the overarching counterinsurgency mission.
    Senator Graham. Now, there were 40,000 requested. The 
President authorized 30,000. It has been my understanding that 
the strategy was to go into Regional Command (RC)-South, take 
the Taliban on, and next summer, 2012, reinvest some of those 
surge forces to RC-East. Have we had enough people in RC-East 
since December 2009 to have an effective counterinsurgency?
    General Allen. I believe that the RC-East forces have been 
conducting an effective counterinsurgency.
    Senator Graham. Is the counterinsurgency a mathematical 
formula?
    General Allen. To some extent.
    Senator Graham. To some extent. Would you run the math and 
report back to the committee as to whether or not RC-East has 
been adequately resourced to have an effective 
counterinsurgency program? Also report back to the committee if 
you take the 33,000 troops out, what does that do to 
counterinsurgency operations going forward? Could you provide 
us with that information?
    General Allen. I certainly will, Senator.
    [The information referred to follows:]

    Although Regional Command-East is currently a supporting effort in 
the overall campaign, it is already achieving some local successes. As 
I assume command, I will examine the campaign and operational 
environment and provide any concerns to my chain of command. My early 
impression is that it is too early to determine the detailed 
implications of the drawdown on the current campaign plan, in terms of 
where geographically, we might accept more or less risk; the general 
impact is that the Afghan National Security Force will have to take an 
increasingly leading role in counterinsurgency operations. The Afghan 
National Security Force are growing in capability that will facilitate 
their security lead. At the same time, International Security 
Assistance Forces will also have to assess our way ahead to maintain or 
even increase momentum of our hard fought gains. This is an expected 
evolution as we move toward Afghan security lead and continue to use 
our resources as wisely and discriminately as possible.

    Senator Graham. Okay. Admiral McRaven, I can't thank you 
and those under your command enough for what you have been able 
to achieve, particularly with bin Laden. If you caught someone 
tomorrow in Yemen, Somalia, you name the theater, outside of 
Afghanistan, where would you detain that person?
    Admiral McRaven. Sir, right now, as you are well aware, 
that is always a difficult issue for us. When we conduct an 
operation outside the major theaters of war, Iraq or 
Afghanistan, we--and again, I will defer to my time as a JSOC 
commander--put forth a concept of operation (CONOP).
    The CONOP goes up through the military chain of command and 
is eventually vetted through the interagency, and the decision 
by the President is made for us to conduct a particular 
operation. Always as part of that CONOP are options for 
detention. No two cases seem to be alike.
    There are certain individuals that are under the 
Authorization for the Use of Military Force (AUMF), and those 
are easier to deal with than folks that may not have been under 
the AUMF. In many cases, we will put them on a naval vessel, 
and we will hold them until we can either get a case to 
prosecute them in U.S. court or----
    Senator Graham. Are we going to have a second round, Mr. 
Chairman?
    Chairman Levin. Depending on how long the first round lasts 
and when that vote starts, but I hope so.
    Senator Graham. I would like to inquire into this in a 
second round. So I don't want to intrude----
    Chairman Levin. Yes, I do hope that we will have at least a 
few minutes each.
    Senator Graham. Okay. To be continued.
    Admiral McRaven. Yes, sir.
    Chairman Levin. You could finish your answer, however, if 
you want.
    Senator Graham. Absolutely. So we put a guy on a ship?
    Admiral McRaven. Yes, sir. The bottom line, Senator, is 
there are----
    Senator Graham. How long do we keep him on the ship?
    Admiral McRaven. Sir, there are a number of different 
options, based on----
    Senator Graham. What is the longest we can keep somebody on 
the ship?
    Admiral McRaven. Sir, I think it depends on whether or not 
we think we can prosecute that individual in a U.S. court, or 
we can return him to a third-party country.
    Senator Graham. What if you can't do either one of those?
    Admiral McRaven. Sir, again, if we can't do either one of 
those, then we will release that individual. I mean, that 
becomes the unenviable option, but it is an option.
    Chairman Levin. Okay. Thank you, Senator Graham.
    Senator Hagan?
    Senator Hagan. Thank you, Mr. Chairman.
    I just want to say we are mighty proud of each and every 
one of you and thank you for your service and your commitment 
to our country.
    I wanted to ask a question about the U.S.-Afghanistan 
relationship. We have to ensure that Afghanistan does not 
reemerge as a safe haven for al Qaeda and transnational 
terrorism.
    Though the initial phase of the drawing down of our forces 
from Afghanistan is limited, we must ensure that the ANSF are 
capable enough to preserve the tactical gains. It is important 
that as we transition to the ANSF responsibility, that they are 
enabled with the appropriate capability, such as intelligence 
planning, logistics, and maintenance.
    General Allen and Admiral McRaven, what should an enduring 
U.S.-Afghanistan strategic partnership look like beyond 2014? 
What type of training, advising, and SOFs presence should we 
have there, if any?
    General Allen. We are in discussion with the Afghans about 
what the long-term, enduring relationship will look like. In 
the course of that discussion, we will ultimately identify the 
roles and missions and functions which conceivably the U.S. 
forces could bring to this enduring relationship.
    I think while much remains to be discussed, it is not 
beyond the realm of possibility that some advisory capacity 
will be required, some enabling capacity will be required for 
ANSF operations. Some intelligence capacity would be required, 
both to build the intelligence capabilities of the Afghan 
forces, and then some counterterrorism capabilities to address 
any reemergence or any potential terrorist hotspot that could 
conceivably emerge in Afghanistan in the period beyond 2014.
    But much of this discussion remains to be had. We are 
nowhere near talking numbers yet or specific units. But in very 
general terms, based on the discussions that we had in Iraq, 
for example, those kinds of broad roles and functions could 
conceivably be discussed over the long term.
    Admiral McRaven. Yes, ma'am, and I would agree with General 
Allen's comments.
    Senator Hagan. Thank you.
    A few weeks ago I met with General Barbero, the Director of 
the Joint IED Defeat Organization (JIEDDO) to discuss the 
interagency effort to interdict the flow of the IED caches. I 
want to do everything possible to improve the detection rates 
and stem the flow of ammonium nitrate from Pakistan coming into 
Afghanistan, and I think we need to put serious pressure on the 
Pakistani network distribution of ammonium nitrate.
    We know who the key facilitators are in Pakistan. They are 
pushing these caches of IEDs made with the ammonium nitrate 
across the Afghan border, which ultimately is killing or 
injuring our troops. General Allen, how do you plan to 
incentivize the Pakistanis to control the distribution of this 
ammonium nitrate, particularly given the fact that the 
Pakistani military and the civilian population, they, too, have 
suffered from these IED attacks at the hands of the Pakistani 
internally focused militants?
    General Allen. The Pakistanis have recently, I think to 
their credit, issued a counter IED strategy. We will continue 
to work with them to build their capacities to do that 
themselves with respect to protecting themselves from IEDs.
    But I think that at multiple levels within our government, 
we have to make very clear to the Pakistani national 
leadership, to the military leadership that the continued 
production of ammonium nitrate, for the purposes of this 
discussion--the fact that it is unregulated, the fact that it 
gets into the hands of those who would move it across the 
border, we have to make it very clear to the Pakistanis. I know 
we are doing that.
    I personally said this to the secretary of defense of 
Pakistan, we need their help in that regard. They have to 
control this. They have to do what they need to, to regulate 
the production and the sale so that it goes into the hands of 
legitimate businessmen.
    On the other hand, on the other side of the border, we will 
continue to posture our forces to both detect, as best we can, 
to detect the infiltration of those caches of ammonium nitrate 
that come across. As we can, we will interdict them, and we 
have had some pretty big interdictions this year. But it is 
only a part of the flow that is coming across.
    It has to be a joint effort. It has to be an effort with 
the U.S. and Afghanistan on one side of the border and the 
United States, Afghanistan, and Pakistan on the other side of 
the border. I believe at many different levels of the 
government, we have expressed our great desire that the 
Pakistanis sign up to this and stand up to the process of 
controlling and regulating ammonium nitrate and its flow and 
the hands into which it goes. If confirmed as the Commander of 
ISAF, I will continue to add emphasis to that.
    Senator Hagan. You said the Pakistanis are now putting 
forward their counter IED plans. Do you know what those are?
    General Allen. We will get back to you on that.
    [The information referred to follows:]

    The improvised explosive device (IED) is as great a threat to 
Pakistan as it is to Afghanistan. According to Joint Improvised 
Explosive Device Defeat Organization, since January, there have been 
684 IED events in Pakistan. Of those, 30 percent targeted Pakistan's 
security forces, 10 percent targeted schools, 12 percent targeted 
civilians, and 16 percent targeted infrastructure.
    On June 17, 2011, the Interior Division of the Government of 
Pakistan issued their National Counter-Improvised Explosive Device (C-
IED) Strategy through the General Civil Defense Directorate. This 
strategy focuses on national level stakeholders countering IED threats 
through effective interagency coordination. Some of their priorities 
and goals are as follows:

        <bullet> Improve border control measures with special attention 
        on smuggling of improvised explosive devices, accessories, 
        ammonium nitrate, and other improvised explosive device 
        precursors;
        <bullet> Adopt legislation for Pakistan's Anti-Terrorism Act;
        <bullet> Create a National Counterterrorism Authority that 
        provides specific requests for technical assistance from the 
        National Counterterrorism Center;
        <bullet> Implement an aggressive public improvised explosive 
        device awareness campaign;
        <bullet> Establish a C-IED cell within the office of the 
        Director General, Civil Defense;
        <bullet> Engage international communities to help Pakistan 
        build and develop their own C-IED capabilities by equipping the 
        Armed Forces and police and providing focused training on the 
        interdiction of improvised explosive device precursors; and
        <bullet> Establish a Level II National Improvised Explosive 
        Device Exploitation Facility (NIEF), principally funded and 
        supported by the United States, to attack the network by 
        exploiting IED evidence primarily for prosecution purposes. The 
        NIEF in Islamabad remains a long delayed aspiration.

    Senator Hagan. Also, do you have a timeframe at all on what 
the Pakistanis might be doing as far as controlling the 
businesses producing this?
    General Allen. I do not.
    Senator Hagan. Okay. Thank you.
    In your answers to the committee's advance policy 
questions, Admiral McRaven, you mentioned the importance of the 
female cultural support teams to engage with elements of 
certain populations, presumably the women and children, which 
have previously been difficult to reach during 
counterinsurgency operations.
    Can you describe the importance of these teams to 
counterinsurgency operations in Afghanistan, how they are being 
integrated into SOFs, and any changes to policy or law that you 
might suggest that would make these teams more effective?
    Admiral McRaven. Yes, ma'am. They have been wildly 
effective in terms of supporting our efforts in Afghanistan. 
Right now, when a special operations mission goes out, we 
normally take four females as part of the female engagement 
team with us. As you point out, their role in that particular 
mission is after we have secured an objective. I will speak 
first from the direct action side, and then I will talk a 
little bit about the special forces side, if you will.
    But from the direct action side, after we have secured an 
objective, part of the role of our female engagement teams is 
to talk to the Afghan females on target, to make sure, one, 
that there is nobody else left inside the compound, that 
everybody is safe and secure, that we reassure the females and 
the children that they are going to be safe. Many times we will 
do tactical questioning of the females with a U.S. female 
soldier. Again, that has been wildly effective for us.
    The special forces, the broader special forces teams that 
are part of developing the Afghan Local Police and the NATO 
forces that are supporting the provincial reconnaissance 
companies are also using some variation of the female 
engagement team to a great effect as well. They are essentially 
fully integrated, if you will, into the operational units.
    They go through an extensive training period for the SOF 
female engagement teams back at Fort Bragg, under the auspices 
of the U.S. Army's SOCOM. The Marine Corps SOF also has a 
female engagement team training program.
    Once they have gone through their basic training program, 
they will come forward. There is some additional training that 
goes on forward with the unit that they are assigned to. Then, 
once they have achieved the standard we are looking for, then 
we will put them forward into the field.
    Right now, all the policies and authorities are in place 
for us to do that. Again, it is probably several years late in 
coming. We probably would have been much better off had we 
developed these female engagement teams early on in the fight. 
But as we look at them now, they are a key component to our 
success in the special operations battlefield, if you will, in 
Afghanistan.
    Senator Hagan. Do you know how many of these female teams 
that you have?
    Admiral McRaven. I know from a JSOC standpoint. I am not 
sure what the broader Army has. Right now, we have 12 teams, 
growing to 16.
    Senator Hagan. Thank you.
    Admiral McRaven. Yes, ma'am.
    Senator Hagan. My time is out.
    General Thurman, I did want to just say you have done a 
great job as the commander of U.S. Army forces command in Fort 
Bragg. I welcome you, and I look forward to your confirmation.
    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join in expressing my thanks and admiration for 
your great service to the country, the extraordinary sacrifice 
and service of the men and women who serve under you, and, of 
course, your families, and look forward to your confirmation 
and voting for it.
    I want to pursue the line of questioning that Senator Hagan 
began. On the assumption that the Pakistanis are not 
cooperative, because they have not proven cooperative in the 
past, what additional measures can we take to destroy the 
sources of the calcium ammonium nitrate that has proved so 
absolutely and horrifically destructive to the men and women 
who serve our Armed Forces in Afghanistan?
    General Allen, I would like, respectfully, to ask you to 
begin. Then, Admiral McRaven, if you could follow with perhaps 
some perspective on what can be done through special 
operations?
    General Allen. Senator, that is an important question. The 
posturing of our intelligence-gathering apparatus, our 
capabilities, our ISR capabilities, the posturing, potentially, 
of our special operators on the western side of the border to 
detect the infiltration of these capabilities, to detect the 
infiltration of the ammonium nitrate, they come generally along 
relatively well-known routes of infiltration, to posture 
ourselves in a way where we can detect and interdict that 
material as much as we possibly can.
    As I said with Senator Hagan, we have had some large 
interdictions this year. It is because there have been explicit 
plans, explicit efforts being put forward and being pursued to 
do just that. Should I be confirmed and become the Commander of 
ISAF, it is my intention to redouble that effort in every 
possible way we can to interdict and stop that flow as it gets 
to the border.
    Senator Blumenthal. Thank you.
    Admiral McRaven?
    Admiral McRaven. Sir, to continue on from General Allen's 
discussion, from a special operations standpoint, we actually 
target the networks, vice the product itself.
    Now, when we have the nexus of the product obviously in the 
network and the individuals in the network, then we get a two-
fer. But for the most part, what we are trying to do is shut 
down the leadership, both the senior leadership and the mid-
level leadership and, to some degree, the foot soldiers that 
are moving this home made explosives (HME) from areas like 
Chaman across the border and into southern Afghanistan.
    What we found is where we have focused our effort against 
some of the HME networks, the Taliban networks down south, we 
have been very effective at disrupting the HME. The additional 
piece of this, and probably better to discuss in a more 
classified form, is there some technology out there that is 
allowing us to detect HME before the critical components are 
put together and turned into a homemade explosive.
    I think we need to continue to pursue that technology 
because it has been reasonably effective early in the testing 
of it, to be able to determine where some of this HME is. Then 
we are subsequently going after those compounds where we see 
it.
    Senator Blumenthal. I thank you both for those answers. I 
would like to pursue the offer to learn more about that 
technology in a different setting, if I may? General Allen, 
also from you, whatever additional information you or your 
staff can provide.
    I am planning to be in Afghanistan and Pakistan toward the 
end of August on a trip that is designed specifically to focus 
on this issue, and I would like to be helpful and supportive 
through the committee and through the authorization-
appropriation process--I know the entire committee will share 
that view--in developing not only the technology, but whatever 
resources are necessary to pursue the calcium ammonium nitrate 
that is brought into Afghanistan.
    I want to focus on the impacts of the explosive devices 
that are manufactured with those substances. Particularly, 
General Allen, I understand there are now 34 active 
telemedicine portals in operation in Afghanistan. That number 
will be expanded, I think, by an additional 42 planned focusing 
on the impacts of the IEDs and other explosive devices, 
particularly when it comes to traumatic brain injury and post-
traumatic stress.
    General Allen. That is correct.
    Senator Blumenthal. I wonder if you could discuss not only 
the use of those resources but others to diagnose and treat the 
post-traumatic stress and traumatic brain injuries (TBI) that, 
in many respects, are among the signature wounds of this war?
    General Allen. Senator, that is a very important question 
from the standpoint of the health of the force in the long 
term. As we discussed yesterday, we have come a very long way 
with respect to our reaction to the effects of blast on our 
troops.
    As I indicated, the nature of the immediate action that 
occurs in the aftermath of an attack has given us the ability 
to not just detect the results of the attack but to take those 
actions, those medical actions necessary in the immediate 
aftermath of the attack so that we can provide the opportunity 
for rest and medical care for those who have been caught in the 
blast effects.
    That process has evolved dramatically, to the extent that 
today some 95 percent of those who are immediately diagnosed 
can be returned to their units. But there is some number, 
because of the immediacy of the care, that we are able to 
determine right away that can go quickly to follow-on care. I 
think that process, as I said, has evolved pretty dramatically 
in recent time.
    Of course, that follows on to the post-traumatic stress 
disorder (PTSD) that you have mentioned, Senator. What I would 
like to do is to give you a definitive lay-down both of how the 
detection for TBI is administered immediately on the spot and 
how it flows ultimately into the PTSD, so that you have one 
comprehensive answer.
    Senator Blumenthal. Thank you.
    My time has expired. I want to thank both of you for the 
very informative, candid, and forthright testimony that you 
have given today. It has been very helpful.
    I would like to pursue the additional information that you 
both have mentioned. Thank you very much.
    General Allen. Yes, sir.
    Chairman Levin. Let us try a 3-minute second round, see if 
we can all get 3 minutes of questions in.
    Let me first ask you, General Allen, you were asked about 
the question of deadlines and as to whether you were aware of 
any deadlines that had been previously set that were supported 
by military commanders, I believe. In Iraq, back in November 
2008, President Bush, as I remember, agreed to two deadlines 
for U.S. forces, one, a June 2009 deadline for the withdrawal 
of U.S. combat forces from Iraqi cities and, second, a December 
31, 2011, deadline for the withdrawal of all U.S. military 
forces from Iraq. Is that accurate?
    General Allen. Mr. Chairman, I will have to check those 
dates, but thank you for that elaboration.
    Chairman Levin. But do you remember those two deadlines 
being set?
    General Allen. I do remember them.
    Chairman Levin. Did they have the support of the military 
at that time, do you remember?
    General Allen. They did, actually. I remember the 
withdrawal from the cities that worked quite well, actually.
    Chairman Levin. All right.
    Second, relative to Korea, General Thurman, you indicated, 
I believe, that you would be willing to look into the plans 
that we have going on for a transformation underway in South 
Korea. There are three major initiatives going on involving our 
military, including a Yongsan Relocation Plan, a Land 
Partnership Plan, and a tour normalization plan. The costs of 
those, I believe, are something like $10 billion, significantly 
more than they were originally thought to be. That is just our 
share of the cost.
    Can you, when you get there, take a look at the current 
plans to bring 8,000 more families to South Korea? There is a 
real question about the rationale. Why are we bringing more 
families to South Korea if it is a more dangerous place and 
continues to be a very dangerous place? There is also a very 
large question about the costs of that normalization, much 
greater than originally contemplated.
    But would you take a look at the current plans and their 
rationale and their costs when you get there and get the full 
report to this committee? Because we have now basically put a 
hold on those plans until we can really make an assessment.
    General Thurman. Mr. Chairman, yes, sir, I will. Based on 
our discussion yesterday, I fully expect to make that the 
number-one priority if I am confirmed, once I get on the ground 
over there.
    [The information referred to follows:]

    Mr. Chairman, I am fully aware of the concerns raised by you and 
other members of this committee regarding the Command's tour 
normalization initiative as well as the efforts to consolidate forces 
onto two enduring hubs. My top priority remains the review of these 
programs in order to address the concerns that have been raised.

    Chairman Levin. All right. Thank you.
    Also, do you have any thoughts about the balance, the 
decisionmaking process as to, if there is another aggression, 
which I think is likely, from North Korea, what the proper 
response is to that aggression, as to what that decisionmaking 
process is, as to the adequacy of the response, but also as to 
the proportionality of the response? Is that a joint decision 
by us and South Korea?
    General Thurman. Mr. Chairman, that is a very good 
question. First off, South Korea is a sovereign country, and I 
believe it is well within their rights to protect themselves if 
there is a provocation. Obviously, that has to be balanced.
    I do know that General Sharp has been working very close 
with the ROK chairman of their joint forces on counter-
provocation and looking at the responses in a joint fashion. 
But I do expect, if confirmed, I will look into that and make 
sure that we are doing the right things, because I think a 
provocation can occur any time.
    Chairman Levin. Thank you.
    Finally, Admiral, on the question of your detention of 
people, you made reference to a couple, I think, that are on a 
ship, something like that. Is there any legal prohibition 
against them being tried before an Article 3 court or before a 
military commission?
    Admiral McRaven. Sir, again, it depends on the individual 
case, and I would be more than happy to discuss the cases that 
we have dealt with.
    Chairman Levin. Well, no, not specific cases so much as is 
there any legal prohibition, assuming it is planned to having 
those people tried either before an Article 3 court, if they 
have committed a crime against the United States, or if they 
have committed a crime of war, by being tried by a U.S. 
military commission?
    Admiral McRaven. Sir, not to my knowledge, there is no 
prohibition.
    Chairman Levin. Thank you.
    Senator Ayotte. Thank you, Mr. Chairman.
    I wanted to follow up, General Allen, on the question of 
detention. If we were to, for example, capture someone like 
Ayman al-Zawahiri in Yemen, for example, outside of 
Afghanistan, could we detain him in Afghanistan at the 
detention facilities there?
    General Allen. We would not recommend that.
    Senator Ayotte. Why is that?
    General Allen. Because Afghanistan is a sovereign country.
    Senator Ayotte. So we are not going to use the detention 
facilities, for example, in Afghanistan to detain terrorists 
who are captured outside the territory of Afghanistan?
    General Allen. It is not our intention.
    Senator Ayotte. Following up, Admiral, with respect to 
detention, if we, for example, were to capture al-Zawahiri, and 
capture him and not kill him but hold him for purposes of 
gathering intelligence and detaining him long term because we 
felt we needed to under the law of war, where would we hold 
him?
    Admiral McRaven. Yes, ma'am. I think that is a policy 
question that I am really not in a position to answer. From a 
practical military standpoint, obviously, we can hold Zawahiri 
or Anwar al-Awlaki or anybody else in a number of places, from 
a practical standpoint.
    It becomes a policy issue and a sovereignty issue for 
various countries. As General Allen said, we have looked a 
number of times at whether or not we would do that in 
Afghanistan, but owing to the nature of the sovereignty of 
Afghanistan and the concern about the potential backlash from 
the Afghan Government, we have recommended not to do that.
    Senator Ayotte. Admiral, would it not be helpful, 10 years 
into the war on terror, to have a long-term detention and 
interrogation facility that would be secure for individuals 
where we need to gather further intelligence?
    Admiral McRaven. Ma'am, I believe it would be very helpful.
    Senator Ayotte. As far as you understand it, is Guantanamo 
Bay still off the table in terms of being used for that type of 
facility?
    Admiral McRaven. As far as I understand it, it is. Yes, 
ma'am.
    Senator Ayotte. Okay. Thank you very much.
    I wanted to also ask, General Allen, as the Deputy 
Commander of CENTCOM, could you tell me if any ISR assets have 
been pulled from Iraq and Afghanistan or Yemen or the general 
CENTCOM area of operations in order to support operations in 
Libya?
    General Allen. While I was still serving at CENTCOM, yes, 
there were.
    Senator Ayotte. Could you describe generally what those 
assets were taken away and whether that has taken any 
capabilities away from us, ISR capabilities in Afghanistan?
    General Allen. Not in Afghanistan, ma'am. I will get back 
to you on that question.
    [The information referred to follows:]

    There were no U.S. intelligence, surveillance, or reconnaissance 
assets taken from Afghanistan to support operations in Libya. One 
Predator unmanned aerial vehicle scheduled to flow to Afghanistan was 
redirected to support Libya operations. In addition, the United Kingdom 
remissioned an ASTOR reconnaissance aircraft (Ground Moving Target 
Indicator collection) from Afghanistan to support Libya operations. 
These adjustments were planned for and thus had no significant impact 
to intelligence, surveillance, and reconnaissance capabilities in 
Afghanistan.

    Senator Ayotte. I would appreciate an answer on that. Thank 
you very much for that.
    I do have an additional question for you, General Thurman, 
and I will submit that for the record.
    I want to thank all three of you for your distinguished 
service and your willingness to continue to serve our country.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Admiral McRaven, if night raids were stopped, ordered to be 
stopped by the Afghan Government, how would that affect our 
ability to be successful?
    Admiral McRaven. Sir, I think stopping night raids would 
certainly be detrimental to the special operations aspect of 
the fight in Afghanistan.
    Just to give you some statistics, sir, over the course of 
the last 12 months, the task force that I commanded over there, 
we conducted approximately 2,000 operations. Of those 2,000 
operations, somewhere in the neighborhood of 88 percent of them 
were, in fact, conducted at night. I think what is lost on a 
lot of folks is that approximately 84 to 86 percent of those 
missions, we never fired a shot.
    Senator Graham. Admiral, I think it is fair to say that 78 
percent of the people we are detaining come from those special 
operations missions.
    Admiral McRaven. They do, sir.
    Senator Graham. Now, General Allen, if the Afghan 
Government insisted that the 2,400 people we are detaining at 
Parwan Prison under the law of war be transferred to Afghan 
control by January 2012, would you have concerns about that 
decision?
    General Allen. I would, sir.
    Senator Graham. Would it affect our ability to be 
successful?
    General Allen. I think it would.
    Senator Graham. All right. Now let us talk about 
counterinsurgency. The option that the country has chosen 
through President Obama is to withdraw 10,000 this year, all 
surge forces gone by September.
    Is it fair to say, General Allen, that was not one of the 
options presented to the President by General Petraeus?
    General Allen. It is a more aggressive option than that 
which was presented.
    Senator Graham. My question is, was that an option?
    General Allen. It was not.
    Senator Graham. I just want the country to understand that 
this is not the Petraeus strategy any longer. The Commander in 
Chief has the perfect right to do what he did. I just hope that 
it hasn't undercut what I think could be a very successful 
outcome.
    Now, perception is reality. Do you agree, General Allen, 
that when the President announced at West Point that we would 
be withdrawing in July 2011, that created a problem in 
Afghanistan because it was seen by some as that America is 
leaving?
    General Allen. I believe there are those who could have----
    Senator Graham. Were letters sent to people by the Taliban 
saying, ``America is leaving in July, you better watch what you 
do,'' something to that effect?
    General Allen. The Taliban have, in fact, communicated----
    Senator Graham. Would you agree that the Lisbon statement 
that we are going to transition in 2014 was very helpful?
    General Allen. It was.
    Senator Graham. Okay. My question is, now that we have 
changed the strategy and the withdrawal timeline, have we sent 
the signal yet again of uncertainty? Seems to be the Taliban 
commanders have renewed optimism, and it seems to be some of 
our allies are going to Iran and other places.
    My question is, do you believe that this more aggressive 
withdrawal policy by the President has sent a signal of 
uncertainty, or do you know?
    General Allen. I think it is too early to tell, Senator.
    Senator Graham. Great answer. I know you are going to try 
your best. We are all pulling for you. Let us know what we can 
do to help you. God bless you all.
    General Allen. Thank you.
    Chairman Levin. Your own position, though, you do support 
that decision of the President. Is that correct?
    General Allen. I do, Senator.
    Chairman Levin. I think it is important that even though 
this apparently was more aggressive than General Petraeus 
recommended, that military leaders of our country support this 
decision and feel it was an appropriate decision for the 
President to make. Is that correct?
    General Allen. Mr. Chairman, we are in execution now.
    Chairman Levin. But you also felt it was a proper decision 
for the President to make?
    General Allen. It is the prerogative of the President to 
take the recommendations of his commanders and to make the 
decision. He made that decision, and we are executing it.
    Chairman Levin. All right. Is it something you agree with?
    General Allen. I agree.
    Chairman Levin. Thank you.
    We want to thank all of you. I think we have probably run 
just exactly to noon, where we thought we would end.
    Your families are sitting behind you, some of them 
shivering. They are not just figuratively behind you, but they 
are literally behind you. The air conditioning here is robust, 
just the way you and your men and women who serve with you act 
robustly.
    Your challenges are tremendous. You are all up to them. 
With the support of your families, you will succeed in meeting 
those challenges. This committee is very grateful for the work 
that you do and the men and women with whom you serve. I can't 
say that enough. I am sure it sounds to some people listening 
to our hearings it is a bit repetitious, but from our 
perspective, we cannot repeat it enough. We do that with a 
purpose, so that our troops understand exactly how much they 
mean to us and to the American people.
    Thank you again, and we will stand adjourned. We will hope 
to get these confirmations done this week. That is also a 
challenging, aggressive schedule, but we are up to it, just the 
way you are up to it.
    Thank you.
    [Whereupon, at 12:00 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN James D. Thurman, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. If confirmed, I will continue to be alert to the need 
for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable.

                       DUTIES AND QUALIFICATIONS

    Question. What is your understanding of the duties and functions of 
the Commander, United Nations Command/Combined Forces Command (CFC)/
U.S. Forces Korea (USFK) and what is your understanding of how these 
different command responsibilities interrelate?
    Answer. The Commander, United Nations Command (CDR UNC), serves as 
commander of an international command and is responsible for 
maintaining the Armistice Agreement on the Korean Peninsula. The CDR 
UNC acts in accordance with United Nations Security Council resolutions 
and directives. The CDR UNC also acts in accordance with directives 
from the U.S. Government that are transmitted by the Secretary of 
Defense through the Chairman of the Joint Chiefs of Staff, keeping the 
Commander of U.S. Pacific Command (PACOM) informed. The CDR UNC is 
responsible for the strategic direction, guidance, operational control 
of forces, conduct of combat operations, and acceptance and integration 
of United Nations Command (UNC) member nations' forces during 
contingencies. This includes enabling access to the seven UNC bases in 
Japan.
    The Commander, CFC, as commander of a bi-national command, supports 
Armistice Agreement compliance, deters hostile acts of external 
aggression directed against the Republic of Korea, and, should 
deterrence fail, defeats an external armed attack. In this position, 
the Commander, CFC, is responsible for receiving strategic direction 
and missions from the U.S.-Republic of Korea (ROK) Military Committee, 
which acts as the strategic coordinating interface for ROK and U.S. 
national authorities. The missions and functions for the Commander, 
CFC, are prescribed in the Terms of Reference for the Military 
Committee and in the U.S.-ROK ``Military Committee Strategic Directive 
Number 2''.
    The Commander, USFK, as a subunified Commander of PACOM, is 
responsible for all duties and functions associated with title 10, 
U.S.C., the Unified Command Plan, and CJCSI 5130. This role provides 
the United States with the means to provide forces to CDR UNC/CFC as 
required, and to support these forces with the required logistics, 
administration, and policy initiatives necessary to maintain readiness.
    These three commands are, in a sense, mutually supporting of each 
other's missions. The CFC and USFK can both provide support to the 
Armistice functions of the UNC. Similarly, both USFK and UNC can 
provide support to CFC for the latter's deterrence and defense 
missions. International support to the CFC is coordinated through the 
UNC. The close consultative partnership with our ROK allies and the 
member nations of UNC ensure that these commands are leveraged in a 
complementary fashion in order to support the national interests of 
both nations.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. If confirmed, my first priority as the UNC/CFC/USFK 
Commander must be to maintain trained, ready, and disciplined joint and 
combined commands that are prepared to fight and win. My extensive 
operational combat and joint duty experience positions me well to 
perform this key task. As a battalion executive officer during Desert 
Shield/Desert Storm, the Chief of Plans and Policy for Allied Forces 
Southern Europe in Kosovo (1999-2000), the Chief of Operations for 
Coalition Forces Land Component Command during the invasion of Iraq 
(2002-2003), and the Multi-National Division Commander responsible for 
all coalition operations in Baghdad, Iraq (2006), I have obtained the 
operational experience and skills that are needed by a UNC/CFC/USFK 
Commander who must lead forces that are ready to ``fight tonight'' on 
the Korean Peninsula. If confirmed, my operational experience in a 
combined/coalition environment would be of great benefit in a future 
role as the Commander of multinational UNC and the bi-national U.S.-ROK 
CFC. In the case of CFC, the ability to work effectively with a partner 
nation is particularly important as significant change will occur under 
the Strategic Alliance 2015 plan. Experience gained from operating and 
leading in multiple combined/coalition environments prepares me well 
for applying the lessons learned toward further strengthening of the 
U.S.-ROK Alliance. Most recently, my assignment as the Commander of 
U.S. Army Forces Command (FORSCOM) has prepared me for leading large 
and complex organizations--FORSCOM is the Army's largest organization--
an experience that will serve me well when dealing with the 
complexities of UNC, CFC, and USFK. Additionally, by currently having 
the responsibility of overseeing, manning, training, and equipping 
237,000 Active component soldiers, and training and readiness oversight 
of 560,000 soldiers in the Army National Guard and U.S. Army Reserve, I 
am well positioned to apply this experience toward maintaining joint 
and combined commands on the Korean Peninsula that are prepared to 
fight and win.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
UNC/CFC/USFK?
    Answer. If confirmed, I plan on conducting in-depth discussions and 
exchange with personnel of the U.S. and ROK Governments, 
nongovernmental organizations, educational and research institutions, 
and civil society at large in order to enhance the expertise needed to 
command UNC, CFC, and USFK. I will continue this dialogue and exchange 
throughout my time in command so that my knowledge and understanding of 
affairs in the ROK continues to increase and mature.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, UNC/
CFC/USFK with the following officials:
    The Secretary of Defense.
    Answer. The Department of Defense (DOD) is composed of the Office 
of the Secretary of Defense (OSD), the Joint Chiefs of Staff, the Joint 
Staff, the Office of the Inspector General of DOD, the combatant 
commands, the military departments, the defense agencies, DOD Field 
Activities, and such other offices, agencies, activities, 
organizations, and commands established or designated by law, or by the 
President or by the Secretary of Defense, in accordance with sections 
111, 113, and 192 of title 10, U.S.C. The functions of the heads of 
these offices are assigned by the Secretary of Defense in accordance 
with existing law. The CDR UNC reports to the Secretary of Defense 
through the Chairman, Joint Chiefs of Staff, and through the Secretary 
of Defense to the President, while at the same time keeping the 
Commander, PACOM, informed of any communications with U.S. national 
authorities. A validated binational U.S.-ROK document provides further 
guidance on CDR CFC's unique relationship with the ROK National Command 
and Military Authorities and the U.S. Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, in accordance with the 
authorities contained in title 10, U.S.C., and except as expressly 
prohibited by law or order of the President or Secretary of Defense, 
has full power and authority to act for the Secretary of Defense and to 
exercise the powers of the Secretary of Defense upon any and all 
matters concerning which the Secretary of Defense is authorized to act 
pursuant to law.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy is the Principal 
Staff Assistant and advisor to the Secretary and Deputy Secretary of 
Defense for all matters on the formulation of national security and 
defense policy, and the integration and oversight of DOD policy and 
plans to achieve national security objectives.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence is the 
Principal Staff assistant and advisor to the Secretary and Deputy 
Secretary of Defense regarding intelligence, counterintelligence, 
security, sensitive activities, and other intelligence-related matters.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, the 
Homeland Security Council, and the Secretary of Defense. CDR UNC 
communicates through the Chairman, Joint Chiefs of Staff, to the 
Secretary of Defense.
    Question. The Secretaries of the Military Departments.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretaries of the Military Departments are 
responsible for, and have the authority necessary to conduct, all 
affairs of their respective Departments, including: recruiting; 
organizing; supplying; equipping to include research and development; 
training; servicing; mobilizing; demobilizing; administering to include 
the morale and welfare of personnel; maintaining; construction, 
outfitting, and repairs of military equipment; and the construction, 
maintenance, and repair of buildings, structures, and utilities as well 
as the acquisition, management, and disposal of real property and 
natural resources.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services are responsible for the 
organization, training, and equipping of the Services under title 10, 
U.S.C. Their support is critical to meet readiness needs. The Service 
Chiefs of Staff also provide military advice to the President, the 
National Security Council, the Homeland Security Council, the Secretary 
of Defense, and the Chairman of the Joint Chiefs of Staff as members of 
the Joint Chiefs of Staff.
    Question. Commander, U.S. Pacific Command.
    Answer. The Commander, USFK, as commander of a subunified command 
of PACOM, reports directly to Commander, PACOM, on matters directly 
pertaining to USFK areas of responsibility. Commander, UNC and 
Commander, CFC, keep the Commander, PACOM, informed of any 
communications with U.S. national authorities.
    Question. Other Combatant Commanders.
    Answer. The commanders of the combatant commands are responsible to 
the President and the Secretary of Defense for accomplishing the 
military missions assigned to them and shall exercise command authority 
over assigned forces as directed by the Secretary of Defense. The 
operational chain of command runs from the President to the Secretary 
of Defense to the commanders of the combatant commands. The Chairman of 
the Joint Chiefs of Staff functions within the chain of command by 
transmitting to the commanders of the combatant commands the orders of 
the President or the Secretary of Defense.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, UNC/CFC/USFK?
    Answer. Based on my initial study of the security situation on the 
Korean Peninsula and vital U.S. national interests in Northeast Asia, 
there are four major and enduring challenges that confront any UNC/CFC/
USFK Commander.
    First is the requirement to deter war, defend against provocation 
and attack, and maintain the Armistice. As shown by events in 2010, 
North Korea continues to commit provocations that have become 
increasingly escalatory and dangerous. A significant challenge is to 
understand the regime of Kim Jong-il and attempt to determine its 
intent. The Alliance must take the necessary actions to deter attack, 
break the cycle of North Korean provocation, and remain ready to defend 
if deterrence fails.
    Second, the command must continue readiness preparations to fight 
and win a war with North Korea and at the same time prepare to deal 
with the complexity of a regime collapse and the attendant 
consequences.
    Third, the UNC/CFC/USFK Commander must sustain the strategic U.S.-
ROK Alliance and ensure that the military component of the Alliance 
continues to be strong as it has been historically and serves the 
interests of our two countries.
    Finally, we must continue to transform the Alliance in the best way 
to achieve national security objectives on the Korean Peninsula. This 
should be done within the dynamic changes occurring in the region and 
the fiscal constraints imposed by the global economic situation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, to address these enduring challenges I will 
focus on the readiness of U.S. and ROK forces to be able to ``fight 
tonight.'' This includes placing strong emphasis on joint and combined 
warfighting fundamentals, readiness and sustainment at best value, 
interoperability of forces, and counter-provocation. Planning and 
preparing for the complex challenges of war and collapse provides the 
foundation for deterrence, defense, and maintaining the armistice. If 
deterrence fails the Alliance will win the war; if regime collapse 
occurs we will deal with the myriad potential scenarios of regime 
collapse.
    If confirmed, I will work to sustain and strengthen the Alliance, 
building on the great work both our militaries and our governments have 
done over the years and focus on sustaining mutual trust and 
interoperability of forces through a robust joint and combined training 
program.
    Finally, if confirmed, I will work toward transforming the military 
component of the Alliance in accordance with the interests of the 
United States and ROK and our fiscal constraints.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near-term 
threats to regional security and stability. The seriousness of the 
threat is seen by North Korea's continued pursuit of a nuclear 
capability and ballistic missile program, and particularly, over the 
past year, by North Korea's unprovoked and deadly attacks against South 
Korea--specifically the attack on the ROK navy ship Cheonan in March 
2010 and the artillery attack on South Korea's Yeonpyeong Island in 
November 2010.
    What is your assessment of the current security situation on the 
Korean peninsula?
    Answer. I believe North Korea remains the primary threat to 
security in Northeast Asia. Over the past few years, the security 
situation on the peninsula has reached high levels of tension following 
the attack on the Cheonan and the artillery shelling of Yeonpyeong 
Island. North Korea has hindered the progress of Six-Party 
denuclearization talks; adopted a policy of provocative actions in an 
attempt to secure concessions; continues its nuclear program, which 
includes pursuit of Highly Enriched Uranium; and continues to 
proliferate dangerous technologies. Although its conventional force 
threat continues to decline, it has compensated by investing in 
asymmetric capabilities, such as ballistic missiles and Special 
Operations Forces. However, Kim Jong-il carefully weighs the cost and 
benefit of military action and avoids actions that could escalate to 
war. Our primary concern is the potential for additional North Korean 
provocations, which is a tool of choice as part of its coercive 
diplomatic strategy designed to safeguard the regime, maintain internal 
control, and extort foreign aid.
    North Korea is also in the process of a succession of power from 
Kim Jong-il to his son, Kim Jong-un, adding another dynamic to 
deterrence. Although little is known of Kim Jong-un, there is no 
evidence to suggest his decisionmaking calculus will differ 
significantly from his father's or that his strategic priorities will 
change. However, Kim Jong-un's youth and inexperience increase the 
likelihood of miscalculation, as does the imperative for him to 
establish credibility with the military hardliners he needs to support 
succession. These factors make him less predictable in the near-term.
    I believe the U.S.-ROK Alliance is strong and ready to address 
these and other security challenges on the Korean Peninsula.
    Question. What is your understanding of how the attacks on the 
Cheonan and on Yeonpyeong Island changed the ROK and U.S. security 
posture on the Peninsula?
    Answer. In response to these two attacks by North Korea, the United 
States and ROK engaged in a series of combined military exercises 
designed to send Pyongyang the clear message that its irresponsible and 
belligerent behavior must stop and that both the United States and ROK 
remain committed to enhancing their combined defense capabilities. The 
first exercise held in this series was a combined maritime and air 
readiness event called Invincible Spirit. This exercise included 
extensive training in the areas of anti-submarine warfare, battle group 
air defense, surface warfare training, including live fire exercises, 
and a robust complement of aircraft that flew a variety of missions.
    Invincible Spirit was followed by the Ulchi Freedom Guardian 
exercise. This annual exercise, like all other training events 
conducted by the CFC, was designed to improve the U.S.-ROK Alliance's 
ability to preserve the Armistice. The exercise was focused on ensuring 
readiness to prepare for, prevent, and prevail against a full range of 
provocations that could occur on the Korean peninsula now and in the 
future. Following Ulchi Freedom Guardian, the United States and ROK 
conducted a combined anti-submarine warfare exercise. Focused on anti-
submarine warfare tactics, techniques, and procedures, the exercise was 
conducted in the waters west of the Korean Peninsula. This anti-
submarine warfare exercise was followed by a U.S.-ROK naval and air 
training event that provided training in the areas of fleet protection, 
alerts/intercepts and defensive counter air/combat air patrols, air 
defense, surface warfare readiness, basic seamanship maneuvers, 
logistics sustainment, and communications.
    When viewed in their totality, the set of combined exercises 
conducted since North Korea's attacks in 2010 have enhanced U.S. and 
ROK combined defense capabilities and readiness, improved force 
interoperability, and demonstrated U.S. commitment to regional 
security.
    Question. What is your assessment of the threat posed to South 
Korea, Japan, and the United States by North Korea's ballistic missile 
and weapons of mass destruction (WMD) capabilities?
    Answer. North Korean ballistic missile and nuclear programs pose a 
direct threat to security in Northeast Asia. The Kim Regime continues 
to use these two programs to shape conditions to gain leverage during 
negotiations, to extract concessions, and ensure regime survival.
    With an inventory of more than 800 ballistic missiles, North Korea 
continues to build short and medium range missiles of increasing range, 
lethality, and accuracy, while enhancing the survivability of its 
missile forces. With its continued research and development of an 
Intercontinental Ballistic Missile, and possible fielding of an 
intermediate range missile, North Korea grows closer to threatening the 
western United States and striking Okinawa, Guam, and Alaska. This 
missile development program presents a threat which cannot be ignored.
    North Korea demonstrated the ability to produce a nuclear weapon 
with its second nuclear test on 9 October 2006 at Punggye. The 
intelligence community assesses that North Korea has enough material 
for at least six plutonium-based weapons. Additionally, there are 
indications that North Korea has pursued a highly enriched uranium 
program in the past, and it is likely the effort continues today. In 
November 2010 North Korea displayed a uranium enrichment facility at 
Yongbyon to foreign visitors. The facility's purpose, ostensibly, is to 
produce fuel for a light water reactor currently under construction at 
the facility. However, this capability could provide an alternative 
source of highly enriched uranium for use in nuclear weapons.
    Question. What is your assessment of North Korea's conventional 
capabilities and readiness?
    Answer. Despite decades of decline in overall readiness and 
capabilities, North Korea retains the fourth largest armed force in the 
world with more than one million active duty and five million Reserve 
personnel. More than 70 percent of these forces are arrayed within 90 
miles of the Demilitarized Zone and North Korea has garrisoned up to 
250 long-range artillery systems in positions to strike the Greater 
Seoul Metropolitan Area. Although an aging and technologically inferior 
force, North Korea fields over 1,700 aircraft, 800 naval vessels, and 
13,000 artillery systems. The most modern North Korean tanks are no 
match for the U.S. M1A2 main battle tank or ROK K1 and K2 tanks. The 
North Korean Air Force has a very limited number of modern aircraft, 
and its pilots have a fraction of the flight hours of ROK and U.S. Air 
Force pilots. The North Korean Navy's surface fleet is likewise aging 
and suffering from maintenance problems. North Korea's leadership 
likely understands its military is incapable of seizing the Korean 
Peninsula by force and that a conventional war would result in an end 
to the Kim Regime. However, the North will continue to use its military 
as a key component of a coercive strategy designed to gain concessions 
through intimidation and provocations.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean Peninsula?
    Answer. I believe the most important factor in maintaining 
deterrence on the Korean Peninsula is the maintenance of a strong U.S.-
ROK Alliance. The Alliance is grounded in the Mutual Defense Treaty and 
we are now striving to develop and expand the Alliance based on the 
June 2009 U.S.-ROK Joint Vision Statement, Strategic Alliance 2015 
plan, and the Guidelines for U.S.-ROK Defense Cooperation. These 
Alliance development measures are designed to build more adaptive and 
flexible force capabilities and promote closer policy and strategic 
coordination between the United States and ROK. Additionally, it is 
important to think of deterrence in a holistic manner, and to this end 
I will seek to ensure that we maximize the military elements of 
national power as a part of a synchronized whole-of-government 
approach. By maintaining a strong Alliance, the United States and ROK 
will maximize the deterrence effect of their combined capabilities.

                      NORTH KOREAN NUCLEAR PROGRAM

    Question. North Korea recently disclosed that it has a functioning 
uranium enrichment program. Whether this program is intended for 
nuclear power, as the North Korean government claims, or for nuclear 
weapons is unknown. Having achieved enrichment capability, however, 
North Korea could certainly use that capability to produce highly 
enriched uranium for weapons. North Korea has a history of 
proliferating missile and nuclear technology. The Proliferation 
Security Initiative (PSI) was established as a means to interdict 
suspect shipments, including shipments of nuclear or missile items to 
and from North Korea.
    Would you recommend any improvements to the organization or 
capability of the PSI member nations to improve the ability to 
interdict prohibited shipments to and from North Korea?
    Answer. The PSI is an interdiction program designed to impede or 
stop the transfer of WMD, their delivery systems, and related materials 
to and from states and non-state actors of proliferation concern. It is 
an interdiction partnership among participating states where the 
development of operational concepts, organization of the program, and 
the sharing of information is done through meetings of its Operational 
Experts Group (OEG). Since endorsing the Statement of Interdiction 
Principles in May 2009, the ROK has increased its PSI participation. 
This increased participation is evidenced by its hosting of the Eastern 
Endeavor 10 maritime WMD interdiction drill off the port city of Busan 
and its joining of the OEG in November 2010. Although issues of 
organization and operational concepts of the PSI are an issue for the 
OEG, I do believe the initiative is an important component of the 
international community's effort to stop the transfer of WMD, their 
delivery systems, and related materials to states and actors of 
concern. I support enhancement of the initiative.
    Question. In your view, are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. Effective counterproliferation requires an interagency and 
international cooperative effort with the intelligence effort the most 
critical. ROK and U.S. naval forces from the U.S. 7th Fleet 
participated in the October 2010 ROK led PSI exercise Eastern Endeavor 
10. If confirmed, I will assess whether U.S. or Combined ROK/U.S. 
forces can more effectively contribute to the PSI. For the employment 
of other DOD forces and capabilities, I would defer to the Commander, 
PACOM, the Chairman of the Joint Chiefs of Staff, and the Secretary of 
Defense.
    Question. In your view, how does the lack of progress in diplomatic 
efforts to persuade North Korea to verifiably dismantle its nuclear 
weapons program inform or guide U.S. nuclear deterrence strategy in the 
region?
    Answer. As I understand the situation, our diplomatic efforts have 
been extensive and we have made numerous attempts to reach an agreement 
leading to a verifiable disablement and dismantlement of North Korea's 
nuclear weapons programs through the Six-Party Talks. However, 
responsibility for the lack of agreement rests with North Korea. The 
Kim regime continues to pursue its nuclear weapons and delivery systems 
programs and this indicates its potential intent to be able to employ 
or proliferate nuclear weapons. Therefore, the United States must 
maintain its nuclear deterrence capability and continue extended 
deterrence for the ROK until such time as North Korea verifiably 
dismantles its nuclear program.

                  BALLISTIC MISSILE DEFENSE PRIORITIES

    Question. The proximity and size of North Korea's missile inventory 
and the unpredictability of the North Korean regime place a premium on 
the missile defense capabilities in the vicinity of the Korean 
Peninsula.
    What is your assessment of the highest priority missile defense 
needs of USFK and CFC?
    Answer. In 2008, the Secretary of Defense signed guidance directing 
the distribution of a set number of Patriot PAC-3 and GEM missiles for 
the Korean Peninsula. To date, the designated number of munitions set 
forth in that document has not been provided to the U.S. Patriot forces 
stationed in the ROK. The number of missiles designated for the ROK or, 
preferably, the Air Defense Artillery Brigade's full unit basic load, 
is the highest priority concerning missile defense on the Korean 
Peninsula.
    Question. What missile defense capabilities do you believe are 
needed in the near term to meet the operational needs of these 
commands, and what systems are available to provide such capabilities?
    Answer. One of the basic tenants of air and missile defense is the 
employment principle of ``layered defense.'' Layered defense allows 
different missile defense systems to engage an inbound ballistic 
missile at different points in its trajectory. Although there is more 
than one missile defense system in the ROK, they are not mutually 
supporting nor do they provide layered defense. The U.S. and ROK 
militaries both have Patriot systems which conduct engagements in the 
terminal phase of a missiles flight (the current version of the ROK 
Patriot systems provide a very limited Theater Ballistic Missile [TBM] 
defense capability). The ROK Navy has acquired three Aegis-like missile 
defense cruisers (KDX IIIs) but they currently do not have missiles to 
be used in theater missile defense (TMD) nor do they have the ability 
to engage TBMs over the Korean Peninsula. The system that would best 
support the layered defense employment principle is a Terminal High 
Altitude Air Defense (THAAD) system which can engage inbound TBMs at 
either the terminal or mid-course phase of flight. A THAAD system could 
be used to provide layered defense and also improve early warning for 
the Korean Peninsula as well as enhance Ballistic Missile Defense (BMD) 
early warning in the region.
    Question. The February 2010 Ballistic Missile Defense Review 
established a policy of pursuing a Phased Adaptive Approach (PAA) to 
regional missile defense, including in Europe, the Middle East, and 
East Asia. This approach is intended to provide timely and effective 
defense of existing and emerging missile threats with a flexible set of 
missile defense capabilities, tailored to each region.
    Do you support the PAA to missile defense, and do you believe it is 
an appropriate approach to providing missile defense capabilities for 
the vicinity of the Korean Peninsula?
    Answer. I do support the President's guidance on PAA as detailed in 
the Ballistic Missile Defense Review report. This approach is designed 
to enhance regional security and deterrence architectures in a way that 
is flexible and adaptive, and responsive to the threat. In coordination 
with Commander, PACOM, USFK has been working over the past decade to 
build a robust BMD force posture that contributes to deterrence and 
assures the ROK of our commitment to their security and to greater 
regional peace and stability. I will continue to work with my 
counterparts as plans for a regional PAA are further developed.
    Question. Do you believe it would be in our security interests to 
seek a cooperative missile defense relationship with South Korea as a 
means of enhancing security on the Korean Peninsula and the region?
    Answer. Yes. There are many benefits and synergies to be gained by 
cooperative missile defense with the ROK. The United States is working 
with the ROK to evaluate its missile defense requirements. Should the 
ROK decide to pursue additional BMD capabilities, experience with other 
allies has shown that we can each leverage our BMD capabilities through 
operational cooperation. We also believe that regional security can be 
enhanced through cooperative missile defense relationships.

                  NORTH KOREA-POW-MIA RECOVERY EFFORTS

    Question. From 1996-2005, the United States worked with the North 
Korean military to recover and repatriate the remains of American 
servicemembers who perished on the Korean peninsula. However, in the 
spring of 2005, the United States unilaterally halted the program.
    In your opinion, should the United States work with North Korea to 
repatriate the remains of American servicemembers found in North Korea? 
If so, when, or under what conditions, should the United States resume 
such cooperation?
    Answer. It is a core value of the United States and our military to 
not leave a fallen comrade and I believe every attempt should be made 
to recover those missing as long as it does not conflict with critical 
security interests and appropriate conditions exist to execute recovery 
operations. This is an enduring commitment our Nation makes to its 
soldiers, sailors, airmen, and marines.
    The Defense Prisoner of War/Missing Personnel Office (DPMO) has 
responsibility for strategy and policy regarding the recovery of Korean 
War remains and provides DOD oversight on the entire personnel 
accounting process. The UNC assists DPMO and PACOM Joint POW/MIA 
Accounting Command in arranging operational and logistics support to 
remains recovery operations in North Korea. Also, the UNC conducts 
repatriation ceremonies after remains are transferred to UNC control at 
the Joint Security Area at the end of each operation.
    Once national policymakers determine that conditions permit 
reengagement with North Korea, DPMO will lead the U.S. team for 
negotiating the resumption of repatriating Korean War remains. If U.S. 
and North Korean representatives can reach a mutually agreeable 
arrangement that provides the necessary process and procedures to 
conduct operations, it would seem possible to resume this humanitarian 
effort. The arrangement must address the safety and security of U.S. 
personnel executing remains recovery in North Korea. When U.S. 
commanders are satisfied that an acceptable level of risk to U.S. 
personnel exists, remains recovery operations can resume in North 
Korea.
    Question. If confirmed, what, if anything, would you do to restart 
cooperation with North Korea on the POW-MIA remains recovery program?
    Answer. National policymakers will decide when to restart remains 
recovery operations in North Korea. This is a bilateral U.S.-North 
Korea policy issue. However, when the decision is made, the UNC will 
continue to play a key role in supporting remains recovery operations 
in North Korea.

                    REPUBLIC OF KOREA-U.S. ALLIANCE

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia-Pacific region. This 
relationship has gone through periods of inevitable change.
    What is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. It is my understanding the current U.S. security 
relationship with the ROK is very strong. It is based on mutual respect 
and trust and grounded in the Mutual Defense Treaty. In June 2009, the 
United States and ROK signed a Joint Vision statement that commits both 
nations to building an alliance that ensures a peaceful, secure, and 
prosperous future for the Korean Peninsula, the Asia-Pacific region, 
and the world at large. Objectives established in the Joint Vision 
statement are being supported by the Strategic Alliance 2015 plan that 
was agreed to by the United States and ROK in October 2010. The 
Strategic Alliance 2015 plan will synchronize multiple U.S. and ROK 
military transformation efforts that are designed to build adaptive and 
flexible force capabilities to deter and defeat aggression and 
provocations against the ROK. The plan moves the United States and ROK 
toward building an Alliance that ensures a peaceful, secure, and 
prosperous future for the Korean Peninsula, the Asia-Pacific region, 
and the world, as called for in the June 2009 U.S.-ROK Joint Vision 
statement.
    The military component of Alliance development is led by the 
Guidelines for U.S.-ROK Defense Cooperation that were agreed to by the 
U.S. Secretary of Defense and ROK Minister of Defense in October 2010. 
Established to direct the future course of the U.S.-ROK defense 
relationship, they are based on and serve to advance the June 2009 
Joint Vision Statement and the U.S.-ROK Mutual Defense Treaty. Under 
the guidelines, the U.S. upholds a firm commitment to ROK defense and 
both nations will implement a set of enabling measures needed for an 
effective combined defense posture. These enabling measures are: to 
enhance intelligence and information sharing; strengthen operational 
planning; further develop capabilities to address the ballistic missile 
threat from North Korea; institutionalize an extended deterrence policy 
committee; enhance interoperability; enhance the combined exercise 
program; and to collaborate on lessons learned. The defense guidelines 
also recognize the importance of close bilateral cooperation to promote 
regional and global peace and stability. In support of these stability 
objectives, the guidelines specify implementation of the following 
measures: strengthening capabilities to contribute to regional and 
global peace and stability; supporting the non-proliferation of WMD, 
related materials, technologies, and their means of delivery; enhancing 
bilateral, trilateral, and multilateral defense relationships; 
strengthening cooperation for international security and peacekeeping 
efforts; and cooperating closely on other transnational and non-
traditional security challenges. The defense guidelines recognize the 
importance of close policy and strategic consultation between the 
United States and ROK for the enhancement of common interests and 
further development of the Alliance.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. Recognizing that a strong U.S.-ROK Alliance is one of the 
most important factors for maintaining peace and stability on the 
Korean Peninsula and in the region at large, I will, if confirmed, 
continue the work of my predecessors directed at sustaining strong ties 
with personnel of the ROK military, other members of the ROK 
Government, Korean civil society, and the South Korean people at large. 
I will encourage continued exchange and cooperation activity between 
Command personnel and the people of local Korean communities--activity 
that connects and binds Americans and Koreans together. I will also 
execute the Alliance building initiatives to promote the continuation 
of a strong U.S.-ROK security relationship.
    Question. What is your assessment of ROK warfighting capability 
trends with regard to the modernization and capability improvements in 
ROK equipment and training?
    Answer. It is my understanding that the ROK military is a highly 
professional and competent force with a modern, mobile network-centric 
warfare capability that fields an array of advanced weapon systems. 
These weapon systems include the K1 main battle tank, K9 self-propelled 
artillery, and the KDX-III guided missile destroyer. The ROK military 
is led by a professional officer corps that currently exercises daily 
command of its forces. It has sustained and supplemented operational 
experience through recent deployments to places such as Iraq, 
Afghanistan, the Gulf of Aden, Lebanon, as well as participating in a 
host of United Nations peacekeeping and humanitarian assistance 
operations. Initiatives to further enhance force capabilities, 
modernize weapon systems, and improve organizational structures and 
force management are being implemented as part of the ongoing ``307'' 
defense reform program.
    ROK military modernization and capability improvements are 
supported through the maintenance of a robust Foreign Military Sales 
(FMS) and Defense Armaments Cooperation Program with the U.S. These 
programs promote interoperability between U.S. and ROK forces and thus 
create a more capable combined force. During fiscal year 2010, the ROK 
was our 11th largest FMS buyer. FMS sales were augmented by a robust 
military training program, where the ROK sends students to the U.S. for 
training in a variety of military-related courses.
    ROK force capability is also sustained and improved through the 
conduct of a tough and realistic exercise program. In addition to 
participating in the combined Ulchi Freedom Guardian, Key Resolve, and 
Foal Eagle exercises with the U.S., the ROK military also conducts 
annually the Taegeuk, Hoguk, and Hwarang exercises. These exercises 
help derive requirements for joint force and unit structure 
development, improve interoperability between the military services, 
and practice inter-agency coordination. It is these factors in total 
that lead me to believe that the ROK is a highly professional, 
competent, and modern military force.
    Question. Until last year, the United States and ROK were planning 
the transfer to wartime operational control (OPCON) of ROK forces to 
the ROK in 2012. Then, in June 2010, the United States and ROK agreed 
to further delay the transfer of OPCON until December 2015. This delay 
was purportedly agreed to because of the evolving security situation on 
the Peninsula and in order to more closely synchronize the transfer 
with other transformation initiatives.
    What is your understanding of the ROK's current and projected 
military capabilities and the ability of ROK forces to assume a greater 
role in the defense of their homeland including responsibility for 
command and control of the readiness, operations, and warfighting of 
their own forces in wartime (``OPCON Transfer'')?
    Answer. It is my understanding that the South Korean military is a 
highly professional and competent force that will be capable of leading 
Alliance defense of the ROK in wartime. Numbering over 633,000 active 
duty personnel, it ranks as the world's sixth largest military in terms 
of personnel and is a modern, mobile network-centric warfare capable 
force that fields an array of advanced weapon systems. The ROK military 
is led by a professional officer corps that currently exercises daily 
command of its forces. It has gained operational experience through 
recent deployments to places such as Iraq, Afghanistan, the Gulf of 
Aden, Lebanon, as well as participating in a host of United Nations 
peacekeeping and humanitarian assistance operations in East Timor and 
Morocco and other operations around the world. Initiatives to enhance 
force capabilities, modernize weapon systems, and improve 
organizational structures and force management are being implemented as 
part of the ongoing ``307'' defense reform program.
    ROK military force capability is supplemented through the conduct 
of a tough and realistic exercise program. In addition to participating 
in the combined Ulchi Freedom Guardian, Key Resolve, and Foal Eagle 
exercises with the U.S., the ROK military also conducts annually the 
Taegeuk, Hoguk, and Hwarang exercises. These exercises derive 
requirements for joint force and unit structure development, improve 
interoperability between the military services, and practice inter-
agency coordination. Because of these factors, it is my understanding 
that the ROK will be ready and capable of leading Alliance defense of 
the ROK in wartime.
    Question. Following the decision to delay OPCON transfer to 2015, 
the United States and ROK entered into an agreement referred to as 
Strategic Alliance 2015 which is described in the USFK October 2010 
Strategic Digest as ``an overarching and synchronized Alliance 
transformation roadmap, containing mutual Alliance end states and 
milestones, ensuring a smooth transition of the lead for the combined 
defense of the Republic of Korea.''
    What is your understanding of the purpose and scope of the 
Strategic alliance 2015?
    Answer. It is my understanding that the Strategic Alliance 2015 
plan synchronizes multiple U.S. and ROK transformation efforts that are 
designed to build adaptive and flexible capabilities to deter 
aggression against the ROK and to defeat aggression should it occur. 
The plan's objective is to sustain and enhance the U.S.-ROK Alliance's 
combined defense posture and capabilities and to support the Alliance's 
future vision and bilateral defense priorities as stated in the 
Guidelines for U.S.-ROK Defense Cooperation. Execution of the Strategic 
Alliance 2015 plan ensures the effective synchronization of major 
elements of Alliance restructuring while maintaining a strong combined 
defense posture to deter or respond to the range of North Korean 
security challenges throughout the transition process. Key elements of 
the Strategic Alliance 2015 plan include: refining and improving 
combined defense plans; defining and developing the new organizational 
structures required for ROK lead of the war effort; implementing more 
realistic exercises based on the North Korean threat of today and 
tomorrow; preparing for the transition of wartime operational control 
to the ROK Joint Chiefs of Staff in December 2015; consolidating U.S. 
military forces in the ROK onto two enduring hubs under the Yongsan 
Relocation Plan (YRP) and Land Partnership Plan (LPP); and force 
management. The goal of all initiatives under the Strategic Alliance 
2015 construct is to build adaptive force capabilities that deter and 
defeat future provocations against the ROK and fight and win on the 
Korean Peninsula should deterrence fail. The Strategic Alliance 2015 
plan as a whole synchronizes ongoing transformation efforts to ensure 
they are aligned and mutually supporting and better postures both 
nations to deter, counter, and defeat North Korean provocations and 
aggression.
    Question. How will it help ensure that the OPCON transfer takes 
place no later than December 2015, as it is now scheduled?
    Answer. It is my understanding that established within the 
Strategic Alliance 2015 framework is a governance structure that guides 
implementation of the plan to include the transition of wartime 
operational control according to specified milestones. Implementation 
issues are identified and addressed through a bottom-up process, where 
U.S.-ROK governance bodies in order of rising decisionmaking authority 
include council of colonels, subcommittees headed by two-star level 
general officers, a steering committee, the joint committee, and the 
Strategic Alliance 2015 working group. These bodies continually work 
issues related to--among other elements of Strategic Alliance 2015--
OPCON transition and ensure that established milestones are adhered to 
and difficulties addressed as they arise.

                            REGIONAL POSTURE

    Question. In your opinion, how should the United States employ its 
forces in ROK to provide for regional presence and engagement, and to 
best respond to regional threats, provide support for out-of-area 
contingencies, and maintain readiness?
    Answer. It is my understanding that how U.S. forces stationed in 
the ROK are employed is currently in a state of evolution as the 
Command transforms its presence there. Our primary focus must remain 
the deterrence of aggression against the ROK--a key Alliance and 
security treaty partner--and to defeat aggression should it occur. 
However, the Command's transformation initiatives as currently 
structured will create the opportunity for U.S. forces stationed in the 
ROK to become available for use in regional exercises, engagement, and 
global operations. We must maintain a U.S.-ROK Alliance military 
posture that allows for an immediate capability to deal with military 
threats and other contingencies on the Korean Peninsula while also 
seizing upon opportunities to address global challenges such as 
terrorism, the proliferation of WMD, piracy, peacekeeping, post-
conflict stabilization, and regional engagement, as called for in the 
2009 U.S.-ROK Joint Vision for the Alliance. If confirmed, I will 
conduct a careful and thorough review of the opportunities for U.S. 
forces to be employed toward the support of regional engagement and 
out-of-area operations.

                      CONSOLIDATION OF U.S. FORCES

    Question. The LPP is consolidating the combat brigade and 
supporting elements of the 2nd Infantry Division in and around Camp 
Humphreys, south of Seoul. New construction of facilities and 
infrastructure required to support the consolidation is being carried 
out using funds from both the Host Nation (South Korea) and U.S. 
military construction accounts. The YRP proposes to move most of the 
U.S. forces currently stationed at Yongsan compound in Seoul to Camp 
Humphrey as well. The YRP relocation is to be largely funded by the 
South Korean Government, but the United States will pay for the 
construction of the housing to support the relocation.
    What is your assessment of the current status of the two 
consolidation plans and the timeline for completion?
    Answer. The YRP and the Land Parnership Plan (LPP) are being 
executed simultaneously and are scheduled for completion in 2016. The 
two plans are structured in such a way as to facilitate the orderly 
movement of servicemembers, civilian employees, and their families to 
the enduring hubs. The YRP and LPP plans are closely dependent on each 
other. Land development and infrastructure projects are under 
construction and must be completed before any unit moves can take 
place.
    The LPP program is on schedule with the majority of projects under 
design and/or construction. The current plan is to complete 
construction of the LPP program in the first quarter of calendar year 
2016 and complete all unit moves by the end of 2016. YRP negotiations 
still continue concerning requirements for the U.S. Korea Command 
(KORCOM) Headquarters. Any delays in reaching agreement over this 
facility could push back completion of the YRP program. However, both 
the United States and ROK expect these negotiations to be concluded 
shortly. The current plan is to complete YRP construction in early 2016 
and complete all moves by the end of 2016 in accordance with the 
Strategic Alliance 2015 plan.
    For the relocation initiative as a whole, as I understand it, the 
planning and program phase is nearly complete and the design phase is 
well underway. Site development/construction has been on-going since 
2005 and vertical construction of YRP projects will begin within weeks. 
LPP program construction has been at a steady state since it began in 
2004.
    Question. What do you anticipate to be the total costs to be 
incurred by the U.S. Government to carry out the two consolidations?
    Answer. According to the LPP signed by the United States and ROK in 
2002, most of the facility costs associated with moving U.S. forces 
from locations north of Seoul to areas south are obtained from host 
nation burden sharing funds. It should be noted, however, that some of 
the LPP facility construction was paid for with U.S. Military 
Construction (MILCON) funds. Under the YRP, the majority of costs 
associated with relocation will be covered by the ROK, to include the 
construction of facilities such as barracks, operational facilities, 
and support facilities. Housing owned by the United States at U.S. Army 
Garrison Yongsan--a facility that is returned to the ROK under YRP 
excluding a small parcel--will be replaced by the ROK at U.S. Army 
Garrison Humphreys. Housing currently leased at U.S. Army Garrison 
Yongsan will be replaced by a privately financed housing project. For 
both YRP and LPP, additional land required to execute these two 
agreements was purchased and provided by the ROK.
    Over $2 billion worth of projects are in design and approximately 
$1.2 billion worth of construction are currently underway at U.S. Army 
Garrison Humphreys. The United States agreed to provide the majority of 
required family housing and unaccompanied senior leader quarters for 
our force at a cost estimated at between $1-$2 billion. With respect to 
the relocation of 2nd Infantry Division under the LPP, the United 
States intends to fund the requirements using both appropriated funds 
and host nation provided burden sharing funds. The U.S. share of the 
total cost to carry out the two ROK-U.S. agreements will be 
approximately $2.4 billion.
    Question. To what extent to you believe the United States should be 
responsible for the costs related to environmental clean-up at bases 
being vacated as a result of the LPP?
    Answer. The return of U.S. installations in the ROK is governed by 
the U.S.-ROK Status of Forces Agreement (SOFA) and its relevant 
agreements. The environmental clean-up of overseas facilities must be 
accomplished in accordance with existing DOD instructions. If 
confirmed, I will ensure that all provisions established in the SOFA 
and relevant DOD instructions are adhered to during the base return 
process and work with all parties concerned to practice good 
environmental stewardship at Command facilities.
    Question. In your opinion, does the consolidation better support 
the warfighting mission? If so, how?
    Answer. I have been briefed that the relocation initiative improves 
warfighting capabilities in several ways. First, the 2nd Infantry 
Division and future Korea Command will be collocated at U.S. Army 
Garrison Humphreys, improving coordination and planning between staffs 
of the two organizations. Similarly, relocating 2nd Infantry Division 
to U.S. Army Garrison Humphreys consolidates the Division's subordinate 
units at a single location, increasing direct face-to-face contact 
amongst unit personnel while reducing the physical span of control and 
infrastructure needed to support the Division. The unit is better 
postured to train and fight together.
    I understand that consolidation at two enduring hubs also enhances 
command and control and coordination. In addition to strengthening 
relationships between operational staffs of the 2nd Infantry Division 
and a future Korea Command, 2nd Infantry Division is better positioned 
to affect initial liaison and coordination during reception, staging, 
and onward movement of deploying maneuver and sustainment brigades. 
Early liaison and coordination sets the conditions to more reliable and 
effective command and control during execution of later phases/stages 
of conflict. Positioning of the 2nd Infantry Division at U.S. Army 
Garrison Humphreys also improves tactical flexibility by posturing the 
division in a better tactical location for rapid commitment in support 
of either of the forward stationed ROK armies and corps. This position 
also shortens logistical lines during the initial phases of conflict 
that better postures the division for successful employment later.
    I have been briefed that consolidation will also enhance the 
execution of noncombatant evacuation operations (NEO). By reducing the 
dispersion of transportation assets, movement times are reduced. By 
separating U.S. forces from initial wartime threats such as North 
Korea's long-range artillery and its ground forces threatening Seoul, 
the vulnerability of these forces is reduced and their survivability 
enhanced. 2nd Infantry Division located at U.S. Army Garrison Humphreys 
will be better able to integrate follow-on maneuver and sustainment 
brigades while not under the fire of North Korean long-range artillery. 
This factor supports the Division's preparation for combat activities. 
Finally, I understand that force consolidation enhances warfighting 
capabilities by improving soldier quality of life, realization of 
stationing efficiencies, optimizes use of land in Korea, and enhances 
force protection and survivability.

                  HOST NATION BURDEN-SHARING PROGRAMS

    Question. Two programs supported by the ROK, the Combined Defense 
Improvement Program and the Korea Host Nation Funded Construction 
Program, provide cash and in-kind projects to satisfy U.S. military 
facility and infrastructure requirements.
    What is your assessment of the current level and quality of the 
burden-sharing arrangement?
    Answer. I have been informed that since 1991, the ROK has made 
contributions toward the costs of stationing U.S. military forces on 
its territory. These contributions are known as cost sharing 
contributions, where cost sharing is defined as the cash and in-kind 
contributions allies make to help offset the costs of stationing U.S. 
forces on their territory. Over the years cost sharing arrangements 
between the ROK and U.S. have been established and specified in a 
series of special measures agreements that typically covered periods of 
time ranging from 1 to 3 years. On 15 January 2009, the ROK and U.S. 
signed a 5-year Special Measures Agreement (SMA) that specifies cost 
sharing arrangements during the 2009 through 2013 time period.
    ROK SMA contributions are divided into three cost sharing 
categories: labor, logistics, and ROK Funded Construction (ROKFC). 
Labor contributions are used solely for the purpose of paying the 
salaries and benefits of USFK's Korean national employees. Logistics 
support consists of in-kind support (logistics equipment, supplies, and 
services) to USFK from the ROK. Finally, ROKFC contributions support 
USFK's military construction and military construction-like 
requirements. ROK cost sharing contributions help ensure that the 
Command maintains its fight tonight readiness and builds the 
infrastructure needed for a transformed U.S. military force presence in 
the ROK.
    In addition to support provided through the SMA, the ROK makes 
other contributions toward the costs of stationing U.S. military forces 
on its territory that are outside the SMA framework. Support of this 
type includes items such as force protection outside USFK facilities, 
the Korean Augmentation to the U.S. Army (KATUSA) program, improvements 
to infrastructure outside and around USFK facilities, use of ROK 
training areas, various fee exemptions, and other contributions. 
Unfortunately, the value of the non-SMA contributions is much more 
difficult to estimate, but in the past contributions of this type have 
been estimated to be valued in the range of hundreds of millions of 
dollars.
    The current SMA expires at the end of 2013. Prior to 2013, the 
United States and ROK will engage in negotiations over a new SMA to 
specify cost sharing arrangements for the post-2013 time period. If 
confirmed, I will conduct an assessment on the level and adequacy of 
current cost sharing arrangements so that support can be given to U.S. 
goals and objectives during negotiations for a post-2013 SMA.
    Question. What priorities would you establish, if confirmed, for 
U.S. forces in Korea to make the best use of these programs?
    Answer. It is my understanding that USFK currently has a process in 
place to determine the appropriate distribution of ROK cost sharing 
contributions across the three cost sharing categories of labor, 
logistics, and ROK Funded Construction on an annual basis. If 
confirmed, I will review this process and make any needed changes to 
ensure that the contributions are being put to best use.
    Question. The overwhelming majority of burden-sharing funds over 
the last 4 years has been used to carry out construction supporting the 
consolidation of forces at Camp Humphreys.
    Do you believe this funding trend should be continued, or that 
funding should be spread to critical requirements at other U.S. bases 
in Korea?
    Answer. ROK burden sharing (cost sharing) contributions are divided 
across three cost sharing categories: labor, logistics, and ROK Funded 
Construction (ROKFC). It is my understanding that USFK has a process in 
place to determine not only the appropriate distribution of cost 
sharing contribution across the three categories, but also the 
appropriate distribution within categories as well. Needs emanating 
from LPP requirements at U.S. Army Garrison Humphreys are supported in 
the ROKFC account. During the 2009-2011 time period, the value of cost 
sharing contribution allocated to ROKFC averaged 40 percent of the 
total SMA contribution yearly. USFK conducts regular reviews of the 
ROKFC account to ensure that important and emergent military 
construction requirements are met. If confirmed, I will review the 
allocation of ROK cost sharing contribution across the ROKFC category 
to ensure that needs at Command facilities are being properly 
addressed.

            TRAINING OF U.S. FORCES IN THE REPUBLIC OF KOREA

    Question. In the past several years, as U.S. forces in Korea have 
drawn down and consolidated, home station training of both U.S. Army 
and Air Force units based on the Peninsula has emerged as a significant 
concern.
    Do you believe there is sufficient availability and access to 
training ranges for large ground unit maneuver and fires, and for close 
air support missions and other Air Force operations?
    Answer. As I understand it, the ground training requirements for 
U.S. forces in the ROK are currently being met. Expanded digital 
connectivity is being leveraged to combine live events in the field 
with virtual or simulation-driven events to maximize training 
opportunities at the tactical and operational levels. This might 
include linking events on and off the Korean Peninsula to both 
replicate the complexity of joint and combined warfare and to optimize 
use of available resources.
    Access to air-to-ground training ranges in the ROK has increased in 
recent years due to refinements in range scheduling procedures. The 
command will need to continue unit deployments to other locations for 
the foreseeable future in order to maintain air crew qualifications 
with all types of ordnance and for electronic warfare. Additional 
arrangements must still be made with the ROK Government to further 
improve the level of range access.
    Question. In your view, are the ranges in Korea adequate to meet 
the training requirements of U.S. forces?
    Answer. I have been briefed that the current inventory for training 
ranges is sufficient to meet U.S. ground forces training requirements 
and maintain readiness. The United States is working closely with the 
ROK to improve the quality and availability of training ranges for our 
air component. Due to the ROK's rapid economic growth, the relatively 
large scale of its military given the size of the country, 
environmental concerns, and competition between military and civic 
infrastructure, our Korean military partners work within the same 
limitations on range availability that U.S. forces face at home. If 
confirmed, I will continue to work with our ROK ally to modernize and 
fully utilize all available training facilities to ensure force 
readiness requirements are met.

                   TOUR NORMALIZATION IN SOUTH KOREA

    Question. DOD is pursuing full tour normalization for U.S. military 
personnel assigned to the Korean Peninsula. Essentially, full tour 
normalization would lengthen service tours from predominantly 1 year, 
as is the case today, to 3 year tours for those accompanied by their 
families and 2 years for those who are unaccompanied. Completion of 
full tour normalization would result in about 12,000 U.S. military 
families in South Korea.
    With the events of the past year on the Korean Peninsula and the 
likelihood that circumstances on the Peninsula will remain 
unpredictable for the foreseeable future, and considering that the 
costs of such a policy change have not yet been fully identified, do 
you believe that it is prudent to proceed with plans for full tour 
normalization and to significantly increase the number of U.S. families 
in South Korea? If so, why?
    Answer. It is my understanding that one of the most important 
benefits of tour normalization is improved force readiness. Currently, 
about 85 percent of USFK servicemembers rotate each year, just as they 
have completed Korea specific training and the local exercise cycle. 
This limits the ability to achieve the same level of readiness enjoyed 
by American forces in the Continental United States, Europe, and other 
locations in the Pacific region. Conversely, as the proportion of 
trained military personnel in place with 3 year accompanied and 2 year 
unaccompanied tours increases, USFK will see benefits such as improved 
understanding of the region and operational environment, the 
strengthening of relations with our ROK ally, and enhanced ability to 
support the transition of Wartime Operational Control to the ROK. 
Simultaneously, USFK is in the process of relocating the majority of 
its forces in the ROK south of the capital city Seoul, thereby reducing 
the immediate threat to family members and simplifying the execution of 
noncombatant evacuation operations if such operations should ever 
become necessary. Non-combatant evacuation operation plans are 
exercised and practiced on a regular basis. Future hubs under the 
Command's relocation initiative lie outside the effective range of 
North Korean artillery. If confirmed, I will conduct a review of the 
tour normalization initiative, taking into account recent 
recommendations made by members of this committee.
    Question. Since full tour normalization was not contemplated as 
part the either the LPP or YRP, what is your understanding of the total 
costs of full tour normalization and how do you believe it would be 
funded?
    Answer. It is my understanding that the Secretary of Defense 
directed in September 2010 implementation of full tour normalization in 
Korea as affordable and according to no specific timeline. The 
Secretary further directed that a plan be provided to him on how to 
proceed with tour normalization no later than 31 March 2011. It is my 
further understanding that the Secretary of Defense is currently 
reviewing options to implement the tour normalization initiative and 
that his recommended course of action will be forwarded to the 
President as part of the fiscal year 2013 budget request.

                            QUALITY OF LIFE

    Question. Through investment in quality of life amenities, to 
include housing, health care, and recreation, the Department has worked 
to achieve the goal of making South Korea an ``assignment of choice'' 
for U.S. Forces.
    What do you consider to be the most essential quality of life 
programs for soldiers and their families stationed in Korea and, if 
confirmed, what would be your goals in this regard?
    Answer. I believe the most essential quality of life programs for 
soldiers and their families serving in the ROK are access to quality 
living and working conditions and facilities, quality health care, and 
quality educational opportunities for dependent family members. If 
confirmed, I will advocate for and take actions to provide our soldiers 
and family members with the best possible living and working 
environment, health care services, and educational opportunities for 
dependent family members.
    Question. What is your understanding of the capacity of DOD schools 
in South Korea to accommodate the increase in families/children 
associated with tour normalization?
    Answer. My understanding is that USFK currently has 10 schools with 
the capacity of about 5,500 students. A number of these schools are 
scheduled to be replaced as part of the YRP, LPP, and the DOD Education 
Activity School Rebuilding Program. When these programs are completed, 
USFK will have the capacity to educate about 6,100 students. School 
capacity will need to increase to about 14,800 students in order to 
satisfy the projected demand required by full tour normalization.

                 MEDICAL CARE FOR U.S. FORCES IN KOREA

    Question. One of the most important quality of life issues in Korea 
is ensuring access to high quality medical care for servicemembers of 
all military branches and their families. Separate medical chains of 
command responsible for providing health care, and the presence of non-
command-sponsored family members who need health services, among other 
factors, have presented challenges. One possible reform that has been 
proposed is to offer a TRICARE-like benefit to all family members and 
DOD employees, regardless of command sponsorship.
    If confirmed, how would you assess the need for improvement in the 
management and delivery of health care services in South Korea?
    Answer. Quality health care is essential for all servicemembers 
regardless of where they serve. However, this is even more important 
for our servicemembers stationed in the ROK, who are thousands of miles 
from home. I have been informed of the long history of excellent care 
provided by U.S. military treatment facilities in the ROK (Army and Air 
Force) as indicated by the most recent pinnacle surveys by the Joint 
Commission in 2010 that placed them among the top for patient care, 
patient safety, and overall performance for military installations. 
Furthermore, the advances in specialty care to include surgical care, 
imaging, and therapeutics of our host nation partners in the ROK is 
among the top in the world, with four of the institutions with whom 
USFK conducts business certifying in the Joint Commission International 
Surveys in the last 2 years. If confirmed, I will continue to monitor 
and assess the availability and quality of health care for our 
servicemembers, DOD civilian employees, and their families serving in 
the ROK.
    Question. What is your view on whether or not the policy regarding 
medical support to noncommand sponsored family members should be 
reconsidered and revised by DOD?
    Answer. It is my understanding that starting under previous USFK 
commanders and continuing through the present time, extraordinary 
strides have been made to ensure access and availability of the full 
range of services, entitlements, and privileges for noncommand 
sponsored family members and dependent family members who reside with 
their military, DOD civilian, or invited contractor sponsor in the ROK. 
If confirmed, I will continue those efforts. I will also remain abreast 
of and weigh in on DOD policy adjustments that support adequate 
staffing and funding of U.S. military treatment facilities so that 
noncommand sponsored personnel can gain access at levels approaching 
that of command sponsored beneficiaries.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. DOD and the Military Services have developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
deployed areas as well as at home stations are still being reported. 
Victims and their advocates claim that they are victimized twice: first 
by attackers in their own ranks and then by unresponsive or inadequate 
treatment for the victim. They assert that commands fail to respond 
appropriately with basic medical services and with an adequate 
investigation of their charges, followed by a failure to hold 
assailants accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. First and foremost, one sexual assault in our ranks is too 
many and significantly affects the morale and readiness of our units 
and personnel. We are working to eliminate these crimes from our 
formations. The current Sexual Assault Prevention and Response (SAPR) 
policies and procedures are effective and will continue to improve as 
we transition to the Sexual Harassment/Assault Response and Prevention 
(SHARP) program, especially for the confidential (restricted) cases. 
Over the next 27 months, the SHARP program is expected to be fully 
functional with trained, full time professionals to educate, respond, 
and assist in the reduction and elimination of this terrible crime.
    Question. What problems, if any, are you aware of in the manner in 
which confidential reporting procedures have been put into operation?
    Answer. Confidential (restricted) reporting is critical to 
empowering victims of these traumatic crimes. It provides them with 
confidential reporters such as Sexual Assault Response Coordinator 
(SARC), Victim Advocate, Chaplain, and/or Medical Provider to privately 
discuss the details and aid in their recovery. The challenge is when a 
non-confidential reporter such as a concerned roommate, friend, parent, 
Equal Opportunity Advisor, or by-stander is informed or aware of the 
incident and attempts to provide assistance and reports it, then the 
victim's confidentiality is lost and the case automatically becomes an 
Unrestricted case. This is when the victims may consider themselves 
``revictimized'' and forced to relive the assault. We must continue to 
encourage reporting, support victims of sexual assault, and ensure 
commanders can take appropriate actions as required to maintain good 
order and discipline.
    Question. What is your view of the policies and procedures in place 
to prevent and respond to sexual assaults, including assaults against 
contractor personnel?
    Answer. The Army has sound policies and procedures in place to 
prevent and respond to sexual assaults. Annually all soldiers are 
required to take Awareness and Prevention Training. Every sexual 
assault victim regardless of duty status is treated with dignity and 
respect, receives immediate medical care and victim advocate services. 
If the victim is a contractor then the case is transitioned to the 
contractor's medical, victim advocate, and investigative staff unless 
the company does not possess these services then the Army provides the 
necessary care for the victim.
    Question. What is your view of the adequacy of the training and 
resources in place to investigate and respond to allegations of sexual 
assault?
    Answer. Our Criminal Investigation Division (CID), special sexual 
assault investigators and prosecutors are well-trained and do an 
outstanding job investigating and responding to every allegation of 
sexual assault.
    Question. What is your view of the willingness and ability of the 
commanders to hold assailants accountable for their acts?
    Answer. Commanders understand their roles as commanders and 
judicial officials under the Uniform Code of Military Justice. I am 
confident commanders exercise those authorities and responsibilities. 
Each case requires investigation, examination of the evidence, 
appropriate advice from experts, and decisions by the commander. I 
trust commanders to make their best judgment in each case, and am not 
aware of any reluctance to make the hard decisions when required.
    Question. If confirmed, what actions would you take to ensure 
senior level direction and oversight of efforts to prevent and respond 
to sexual assaults and to hold assailants accountable for their 
actions?
    Answer. I am a strong supporter of the Army's ``I. A.M. Strong'' 
campaign which directs all personnel to Intervene, Act, and Motivate 
each other to prevent sexual assaults. In addition, I will ensure the 
command has the required number of trained SARC/SHARP, Medical, CID, 
and Chaplain personnel to provide ample prevention training to units 
and responsive care to all victims. These actions support the CSA's 
desire for a cultural change in our Army and lead the attack on sexual 
assaults in our Nation.

                       HOMOSEXUAL CONDUCT POLICY

    Question. The ``Don't Ask, Don't Tell Repeal Act of 2010'', enacted 
on December 22, 2010, provides for the repeal of the current DOD policy 
concerning homosexuality in the Armed Forces, to be effective 60 days 
after the Secretary of Defense has received the DOD's comprehensive 
review on the implementation of such repeal, and the President, 
Secretary, and Chairman of the Joint Chiefs of Staff certify to the 
congressional defense committees that they have considered the report 
and proposed plan of action, that DOD has prepared the necessary 
policies and regulations to exercise the discretion provided by such 
repeal, and that implementation of such policies and regulations is 
consistent with the standards of military readiness and effectiveness, 
unit cohesion, and military recruiting and retention.
    What is your view on repealing the current DOD policy?
    Answer. This is a policy change that we can make successfully. I 
believe that the great soldiers, sailors, airmen, and marines can and 
will accommodate such a significant change. The American people have 
spoken on this subject through their elected officials, and the result 
is the law that we currently have and the new policy we are 
deliberately preparing to implement. An important part of this process 
is to engage our men and women in uniform and their families. The 
Services' chain-teaching programs facilitate thoughtful, constructive 
dialogue on the subject between leaders and servicemembers. Ultimately, 
I am confident we will continue to have an outstanding military ready 
and able to serve and meet the needs of the Nation.
    Question. If confirmed, do you foresee any problems with 
implementing a repeal of the policy commonly referred to as ``Don't 
Ask, Don't Tell'' in the ROK and USFK, if the President, Secretary of 
Defense, and the Chairman of the Joint Chiefs make the required 
certification to Congress?
    Answer. If confirmed, I will implement repeal of the policy 
commonly referred to as ``Don't Ask, Don't Tell,'' as directed. I have 
completed the DOD policy repeal training.

                    PREVENTION OF HUMAN TRAFFICKING

    Question. Following media reports connecting prostitution and human 
trafficking in Korea to U.S. military forces, Commander, USFK, in 2004 
instituted a zero tolerance policy regarding the illegal activities of 
prostitution and human trafficking. Under this policy, all USFK 
personnel, military and civilian, as well as contractors and their 
employees, are expected to comply with prohibitions, including 
observance of curfews and laws regarding off-limits areas and 
establishments, aimed at curtailing these practices.
    What effects have changes in U.S. policy, as well as new criminal 
laws implemented by the ROK, had on the incidence of prostitution and 
human trafficking in Korea?
    Answer. It is my understanding that USFK has a zero tolerance 
policy regarding the illegal acts of prostitution and human 
trafficking. The command's policy is built upon a four-prong strategy 
of awareness, identification, reduction, and enforcement. Awareness is 
established and increased through improved education such as mandatory 
prostitution and human trafficking training for all USFK personnel. 
Identification involves the recognition of indicators that an 
establishment may be participating in prostitution and human 
trafficking activities and the procedures to assist victims. Reduction 
occurs through constant Command presence and efforts to increase 
alternative activities available for servicemembers to participate in. 
Finally, the Command pursues aggressive enforcement on illegal 
establishments and offenders. Additionally, USFK regulation requires 
all incoming personnel to be briefed on the Command's policy towards 
prostitution and human trafficking, establishments and areas that have 
been placed off-limits, and on individual conduct and values. As a 
result of this policy and related actions, there has been a steady 
decrease in the number of reports of prostitution and human trafficking 
and the awareness of Command personnel on this important issue has 
increased. I fully support the Command's current policy of awareness, 
identification, reduction, and enforcement, and will continue--and 
improve upon if necessary--this approach if confirmed.
    Question. What further changes, if any, to the Uniform Code of 
Military Justice and military regulations are needed in your judgment 
to ensure maximum effectiveness of the zero tolerance policy?
    Answer. I know of no changes needed to the Uniform Code of Military 
Justice and military regulations. If confirmed, I will continue to be 
alert of the need for any changes.
    Question. If confirmed, what steps would you take to further 
enhance the effectiveness of the zero tolerance policy?
    Answer. If confirmed, I will continue the Command's existing policy 
of awareness, identification, reduction, and enforcement, and make 
efforts to sustain and build upon the success achieved to date.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, UNC/CFC/USFK?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

           Question Submitted by Senator Joseph I. Lieberman
                    North Korean Nuclear Deterrence

    1. Senator Lieberman. General Thurman, I note that in response to 
an advance policy question submitted to you by this committee, you 
stated that ``the U.S. must maintain its nuclear deterrence capability 
and continue extended deterrence for the Republic of Korea (ROK) until 
such time as North Korea verifiably dismantles its nuclear program.'' I 
would appreciate it if you would expand upon this response, as I am 
concerned it does not fully reflect U.S. policy on extended deterrence 
for the ROK. For example, in a joint communique by the U.S.-ROK 
Security Consultative Meeting issued on October 8, 2010, Secretary of 
Defense Robert Gates ``reaffirmed the continued U.S. commitment to 
provide and strengthen extended deterrence for the ROK, using the full 
range of military capabilities, to include the U.S. nuclear umbrella, 
conventional strike, and missile defense capabilities,'' without 
linking that commitment to the dismantlement of the North Korean 
nuclear program. I thank you again for undertaking this important 
assignment, and look forward to your response to this question.
    General Thurman. I fully support current U.S. policy on extended 
deterrence for the ROK. Specifically, that the United States will use 
the full range of military capabilities to include the nuclear 
umbrella, conventional strike, and missile defense capabilities, 
without linking the duration of that commitment to dismantlement of 
North Korea's nuclear program. This policy has been established in 
several Security Consultative Meeting Joint Communique as well as in 
the June 2009 Joint Vision of the U.S. and ROK Alliance. My intention 
was not to limit U.S. extended deterrence policy for the ROK in my 
response to the advanced policy question.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                           KOREAN REALIGNMENT

    2. Senator McCain. General Thurman, do you agree with the 
conclusion of Senator Levin, Senator Webb, and myself that a period of 
review and reassessment is needed to determine whether the base 
realignment plan in Korea is still the right plan?
    General Thurman. I am fully aware of your concerns regarding the 
Command's base relocation plans. My top priority is to review the 
relocation program in order to address the concerns that have been 
raised.

    3. Senator McCain. General Thurman, what is your understanding of 
the cost of this current plan?
    General Thurman. It is my understanding that total costs for the 
Yongsan Relocation Plan and Land Partnership Plan will be about $12 
billion.

    4. Senator McCain. General Thurman, what do you consider to be the 
benefits of current planning for base realignment?
    General Thurman. It is my understanding that the relocation plans 
were developed to address several problems associated with the existing 
basing arrangement. These problems included civilian encroachment, non-
optimal base locations for the conduct of operations today, and 
declining servicemember quality of life due to aging and deteriorating 
facilities. I have been briefed that the relocation initiatives will 
improve warfighting capabilities by: colocating 2nd Infantry Division 
and the future U.S. Korea Command, enhancing coordination, planning, 
and command and control; reducing 2nd Infantry Division's span of 
control and support infrastructure needs; improving tactical 
flexibility by better positioning 2nd Infantry Division for rapid 
support of either of the forward stationed ROK armies and corps; and 
shortening logistical lines during the initial phase of a conflict. In 
addition to improving these warfighting capabilities, the relocation 
initiatives will also enhance force protection and survivability by 
moving personnel and equipment outside tactical effective range of 
North Korean long-range artillery and improve the ability to conduct 
non-combatant evacuation operations. I have been told that once 
completed, relocation will create stationing efficiencies and optimize 
the Command's use of land in the ROK. Servicemember quality of life 
will be improved through the construction of new and modern facilities.

                  DEPLOYMENT OF ARMY UNITS FROM KOREA

    5. Senator McCain. General Thurman, in your answers to the 
committee's advance policy questions, you stated that the U.S. Forces 
Korea (USFK) Command's transformation initiatives as currently 
structured ``will create the opportunity for U.S. forces stationed in 
the ROK to become available for use in regional exercises, engagement, 
and global operations.'' GAO completed a report last month that 
questioned the cost effectiveness of the tour normalization plan and 
whether Army families would consider it an improvement in quality of 
life if soldiers assigned to South Korea would be required to deploy to 
other regions. Is the extended deployment of U.S. combat forces away 
from Korea consistent with the guidelines contained in the U.S.-ROK 
Defense Cooperation agreement and the Strategic Alliance 2015 plan?
    General Thurman. The deployment of U.S. forces off the Korean 
Peninsula appears to be consistent with mutually agreed upon documents 
between the United States and ROK. For example, the June 2009 Joint 
Vision of the U.S.-ROK Alliance states that the two countries are 
building a comprehensive strategic alliance of bilateral, regional, and 
global scope, adding that the ROK will take the lead role in combined 
defense of Korea supported by an enduring U.S. military force presence 
on the Korean Peninsula, in the region, and beyond. The Joint Vision 
further notes that the United States and ROK will work closely to 
address the global challenges of terrorism, proliferation of weapons of 
mass destruction, and piracy, enhancing bilateral coordination on the 
conduct of peacekeeping and post-conflict stabilization operations.
    It is my understanding that the deployment of U.S. forces off the 
Korean Peninsula is consistent with the Strategic Alliance 2015 plan. 
Similarly, the October 2010 Guidelines for U.S.-ROK Defense Cooperation 
recognize the importance of close bilateral cooperation to promote 
regional and global peace and stability. With this recognition in mind, 
the guidelines list measures that will be taken to strengthen the 
Alliance's role in enhancing regional and global security. These 
measures are: strengthening capabilities to contribute to regional and 
global peace and stability; supporting the nonproliferation of weapons 
of mass destruction, related materials, technologies, and their means 
of delivery; enhancing bilateral, trilateral, and multilateral defense 
relationships; strengthening cooperation for international security and 
peacekeeping efforts; and cooperating closely on other transnational 
and nontraditional security challenges. The defense guidelines 
recognize the importance of close policy and strategic consultation 
between the United States and ROK for the enhancement of common 
interests and further development of the Alliance. It should be noted, 
however, that U.S. commitment to ROK security remains strong and the 
focus should always be placed on maintaining peace and stability on the 
Korean Peninsula.

    6. Senator McCain. General Thurman, if confirmed, will you be 
comfortable with allowing a portion of the approximately 28,000 U.S. 
forces under your command to be deployed to other regions of the world 
for up to a year while leaving their families in Korea?
    General Thurman. It is my understanding that USFK's current 
transformation initiatives will create the opportunity for U.S. forces 
stationed in the ROK to become available for use in regional exercises, 
engagement, and global operations. Making these forces available for 
activities such as this appears to support objectives established in 
the June 2009 Joint Vision for the U.S. and ROK Alliance. It is my 
intention to conduct a careful and thorough review of the opportunities 
and timing for U.S. forces stationed in Korea to be employed toward the 
support of regional exercises, engagement, and global operations, as 
well as the effect such employment would have on security of the Korean 
Peninsula and military families.

    7. Senator McCain. General Thurman, how is the participation of 
USFK forces in the Army's force generation process consistent with the 
U.S. goal to deter or defeat aggression should it occur?
    General Thurman. It is my intention to conduct a careful and 
thorough review of the effects deploying U.S. forces stationed in the 
ROK to regional exercises and global operations will have on deterring 
and defeating aggression directed at the ROK. Our primary focus must 
remain defense of the ROK.

    8. Senator McCain. General Thurman, could a deployment of a 
sizeable number of U.S. forces away from Korea for a year act as a 
destabilizing event?
    General Thurman. The primary focus of U.S. forces stationed in the 
ROK must be the deterrence of aggression against the ROK and, should 
deterrence fail, defeat of that aggression. My intention is to conduct 
a careful and thorough review of the prospect for employing military 
forces assigned to USFK toward the support of regional exercises and 
global operations and the effect such employment would have on security 
of the Korean Peninsula.

    9. Senator McCain. General Thurman, how would such deployments be 
seen by our ROK allies?
    General Thurman. Through documents such as the June 2009 Joint 
Vision of the U.S.-ROK Alliance and October 2010 Guidelines for U.S.-
ROK Defense Cooperation, the ROK has committed itself to working with 
the United States to address the global challenges of terrorism, 
proliferation of weapons of mass destruction, piracy, and enhance 
bilateral coordination on the conduct of peacekeeping and post-conflict 
stabilization operations. The ROK has also committed itself to 
cooperate with the United States toward the promotion of regional and 
global peace and stability. Thus, there are bilateral agreements 
between the United States and ROK that suggests the latter's openness 
to the deployment of USFK forces to operations off the Korean 
Peninsula. With that being said, my intention is to conduct a careful 
and thorough review of the prospect for employing USFK forces toward 
the support of regional exercises and global operations.

                      TOUR NORMALIZATION IN KOREA

    10. Senator McCain. General Thurman, it has long been a goal of 
commanders of USFK to change from year-long, unaccompanied tours for 
most soldiers assigned to duty in South Korea to a normalized tour of 3 
years, accompanied by dependents. However, the costs of carrying out 
this plan are very high. Building the required family housing, 
Department of Defense (DOD) schools, medical facilities, and so on 
represent an investment that the Army may not be able afford. What is 
your view of the feasibility of the current planning in this regard?
    General Thurman. It is my understanding that the Secretary of 
Defense directed in September 2010 implementation of full tour 
normalization in Korea as affordable and according to no specific 
timeline. The Secretary further directed that a plan be provided on how 
to proceed with tour normalization no later than 31 March 2011. It is 
my further understanding that the Secretary of Defense is currently 
reviewing options to implement the tour normalization initiative. A top 
priority of mine now is to review the tour normalization initiative 
along with the appropriate stakeholders.

    11. Senator McCain. General Thurman, do you support the proposal to 
increase the Overseas Housing Cost of Living Allowance to $5,000 a 
month, per soldier, to pay for family housing?
    General Thurman. It is my understanding that the projected monthly 
Overseas Housing Allowance (OHA) under the Humphreys Housing 
Opportunity Program (HHOP) will be initially set at $4,200. The HHOP 
OHA will be a special rate for HHOP units only. I also understand that 
establishing the OHA rate requires joint approval by the Secretary of 
the Army and Chairman of the Per Diem and Entitlements Committee who 
works within the Office of the Secretary of Defense (Personnel and 
Readiness). The Secretary of the Army approved the rate establishment 
on 29 March 2011 and forwarded the request to the Chairman of the Per 
Diem Committee for action. It is my understanding that the request is 
still within the Office of Secretary of Defense (Personnel and 
Readiness). A top priority of mine in the near-term will be a review of 
the Command's transformation program as a whole in order to address 
concerns that have been raised by Congress.

    12. Senator McCain. General Thurman, what is your understanding of 
the current position of Army leadership on this issue?
    General Thurman. It is my understanding that the February 2010 
Quadrennial Defense Review stated that the Defense Department's long-
term goal is to phase out all unaccompanied tours in Korea. Later that 
year, in September 2010, the Secretary of Defense directed the 
implementation of full tour normalization in the ROK as affordable and 
according to no specific timeline. It is also my understanding that the 
Secretary of Defense is currently reviewing options to implement the 
tour normalization initiative. A top priority of mine is to review the 
tour normalization initiative with all key stakeholders, to include 
Department of Army leadership.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                              NORTH KOREA

    13. Senator Inhofe. General Thurman, how does the shifting of U.S. 
forces impact the United Nations' readiness for deterring or repelling 
North Korean attacks?
    General Thurman. I have been briefed that the Command is currently 
implementing a relocation program under the Land Partnership Plan and 
Yongsan Relocation Plan. These plans were developed to address several 
problems associated with the existing basing arrangement. These 
problems included civilian encroachment, non-optimal base locations for 
the conduct of operations today, and declining servicemember quality of 
life due to aging and deteriorating facilities. I have been further 
briefed that the relocation initiatives will improve warfighting 
capabilities by: co-locating 2nd Infantry Division and the future U.S. 
Korea Command, enhancing coordination, planning, and command and 
control; reducing 2nd Infantry Division's span of control and support 
infrastructure needs; improving tactical flexibility by better 
positioning 2nd Infantry Division for rapid support of either of the 
forward stationed ROK armies and corps; and shortening logistical lines 
during the initial phase of a conflict. In addition to improving these 
warfighting capabilities, the relocation initiatives will also enhance 
force protection and survivability by moving personnel and equipment 
outside tactical effective range of North Korean long-range artillery 
and improve the ability to conduct non-combatant evacuation operations. 
A top priority of mine is to review the relocation program underway in 
the ROK to ensure that the Command maintains its ``fight tonight'' 
readiness.

    14. Senator Inhofe. General Thurman, are U.S. forces in Korea 
receiving all the equipment they need to fight and win on the 
peninsula?
    General Thurman. [Deleted.]

    15. Senator Inhofe. General Thurman, how will the military 
construction that USFK is requesting contribute to that readiness?
    General Thurman. I have been briefed that USFK has requested three 
military construction projects for fiscal year 2012. These three 
projects are: construction of a barracks complex at Camp Henry (Army); 
construction of a barracks complex at Camp Carroll (Army); and 
construction of a dormitory at Osan Air Base (Air Force). The two Army 
projects are needed so that unaccompanied soldiers can live in barracks 
that comply with new Army standards for security, space, and privacy. 
Current facilities are inadequate and adversely affect soldiers' 
quality of life and morale. The Air Force dormitory will eliminate a 
deficiency in unaccompanied personnel housing and improve quality of 
life for enlisted personnel. Taken as a whole, it is my understanding 
that these three projects will improve soldier quality of life, morale, 
and thus, combat readiness.

    16. Senator Inhofe. General Thurman, how does the normalization of 
tours from 1 year tours to 3 year tours affect our readiness?
    General Thurman. I have been briefed that the tour normalization 
initiative will improve force readiness. Currently, about 85 percent of 
USFK servicemembers rotate each year, just as they have completed Korea 
specific training and the local exercise cycle. This limits the ability 
to achieve the same level of readiness enjoyed by American forces in 
the Continental United States, Europe, and other locations in the 
Pacific region. Conversely, as the proportion of trained military 
personnel in place with 3 year accompanied and 2 year unaccompanied 
tours increases, USFK will see benefits such as improved understanding 
of the region and operational environment, the strengthening of 
relations with our ROK ally, and enhanced ability to support the 
transition of Wartime Operational Control to the ROK. One of my top 
priorities upon arrival in the ROK is to conduct a review of the tour 
normalization initiative and how it will affect combat readiness.

              SECURITY ASSISTANCE AND ENGAGEMENT PROGRAMS

    17. Senator Inhofe. General Thurman, our military-to-military 
(1206), civilian-to-civilian (1207), small-scale special operations 
(1208), Commander's Emergency Response Program (CERP), and Combatant 
Commander's Initiative Fund (CCIF) have been incredibly successful in 
aiding developing nations, fighting terrorism, and providing resources 
for emergency situations. My belief is that the key to these programs 
has been the combined efforts of DOD, DOS, the chiefs of mission, and 
combatant commanders working together to increase the capabilities of 
our partner nations to provide for their own security, increasing 
stability in their region and around the globe. What value do these 
funds provide in your prospective areas of responsibility?
    General Thurman. In DOD, offices that play a role in management and 
execution of the programs identified in the question above are the 
Office of the Secretary Defense, Joint Staff, and combatant commands. 
As a subunified command, it is my understanding that the USFK Commander 
does not participate in the operation of these programs. Thus, I will 
have to defer to others on this question.

    18. Senator Inhofe. General Thurman, do you have any concerns about 
being able to effectively execute these programs in your prospective 
areas of responsibility?
    General Thurman. As a subunified command, it is my understanding 
that the USFK Commander does not participate in the operation of these 
programs. That being said, it should be noted that by working on a 
daily basis with Korean counterparts to maintain peace and stability on 
the Korean Peninsula, USFK operates a robust engagement program with 
the ROK. This daily engagement is supplemented by USFK's Good Neighbor 
program. Under this program, a host of activities are conducted that 
engage and connect the Command with the local Korean community. Good 
Neighbor events educate, inform, and familiarize Koreans with the 
mission and purpose of USFK. This direct engagement allows Americans 
and Koreans to develop mutual understanding of one another's cultures, 
customs, and lifestyles, often leading to the formation of lifelong 
friendships between members of the two communities. Examples of events 
conducted by the Good Neighbor program include English-language camps, 
speaking engagements by U.S. military personnel, and tours of the Joint 
Security Area/Demilitarized Zone and USFK installations. The program 
promotes two-way exchange between USFK personnel and people of the ROK. 
The program helps foster exchange, understanding, and cooperation 
between members of USFK and the Korean communities that exist beside 
USFK facilities. All of these events strengthen the U.S.-ROK Alliance 
at both the professional and personal levels.
                                 ______
                                 
             Question Submitted by Senator Roger F. Wicker

                              GLOBAL HAWK

    19. Senator Wicker. General Thurman, by sharing intelligence, 
surveillance, and reconnaissance (ISR) responsibility with our 
coalition partners, I understand U.S. forces will realize a four-fold 
improvement in coverage over the Korean peninsula beyond Guam-based 
U.S. Air Force Global Hawk assets alone. I also understand USFK will 
have direct access to ISR data coming off a Korean Global Hawk, and 
U.S. and Korean intelligence analysts will continue to work side-by-
side with Global Hawk data as they do today with U-2 data. Can you 
elaborate on the positive impact ROK acquisition of unmanned aircraft 
system platforms such as Global Hawk will have on American and ROK 
warfighters?
    General Thurman. ROK Global Hawk systems will dramatically increase 
our collection capacity. It means sustained collection for days and 
weeks at a time in crises or combat operations. Our goal is to 
distribute Global Hawk data creating new opportunities for existing 
exploiters and surge capacity in times of crises. Global Hawk in Korea 
provides the means to launch and recover U.S. platforms operating in 
the region. It provides greater capacity for Indications and Warning. 
Global Hawk can range the entire peninsula without risks to aircrews 
from air defense systems. In the hands of our allies, Global Hawk is a 
force multiplier on the peninsula and throughout the region.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

              PATRIOT PAC-3 AND GUIDANCE ENHANCED MISSILES

    20. Senator Ayotte. General Thurman, in your responses to the 
advance policy questions, you state that the U.S. Patriot forces 
stationed in South Korea have not received the designated number of 
Patriot PAC-3 and Guidance Enhanced Missiles as per the Secretary of 
Defense's 2008 guidance. Why hasn't the designated number of munitions 
been provided yet to our troops in South Korea?
    General Thurman. [Deleted.]

    21. Senator Ayotte. General Thurman, has there been a subsequent 
policy decision to not provide these missiles to our forces in South 
Korea or is there a lack of capacity in the industrial base?
    General Thurman. No. However, the Joint Capabilities Mix II--and 
now III--studies show that there are not enough missile defense assets 
in the world to keep up with the growing threats. The 2010 Ballistic 
Missile Defense Review acknowledges this fact and describes methods and 
suggestions to deal with this to include burden sharing with our allies 
and ensuring that the missile defense fight is a joint capabilities 
fight using assets and capabilities from all Services to negate and 
defeat the multiple and diverse tactical ballistic missile threats.
                                 ______
                                 
    [The nomination reference of GEN James D. Thurman, USA, 
follows:]

                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 4, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General

    GEN James D. Thurman, 0000.
                                 ______
                                 
    [The biographical sketch of GEN James D. Thurman, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
            Biographical Sketch of GEN James D. Thurman, USA
Source of commissioned service: ROTC.

Educational degrees:
    East Central University--BA--History
    Webster University--MA--Management

Military schools attended:
    Armor Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                 Date of Appointment
------------------------------------------------------------------------
2LT.......................................  4 Jun 75
1LT.......................................  4 Jun 77
CPT.......................................  18 Nov 79
MAJ.......................................  1 Jan 86
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Jan 00
MG........................................  1 Jan 03
LTG.......................................  19 Jan 07
GEN.......................................  3 Jun 10
------------------------------------------------------------------------

Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Oct 75..........................  Dec 75............  Platoon Leader, A
                                                       Company, 6th
                                                       Battalion, 32d
                                                       Armor, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Dec 75..........................  Sep 77............  Platoon Leader,
                                                       Combat Support
                                                       Company, later
                                                       Executive
                                                       Officer, C
                                                       Company, 6th
                                                       Battalion, 32d
                                                       Armor, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Oct 77..........................  Dec 77............  Motor Officer, 6th
                                                       Battalion, 32d
                                                       Armor, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO
Dec 77..........................  Sep 78............  Student, Officer
                                                       Rotary Wing
                                                       Aviator Course,
                                                       U.S. Army
                                                       Aviation Center,
                                                       Fort Rucker, AL
Sep 78..........................  Jan 81............  Aero-Scout Section
                                                       Leader, later,
                                                       Aero-Scout
                                                       Platoon
                                                       Commander, later
                                                       Operations
                                                       Officer, A Troop,
                                                       1st Squadron,
                                                       17th Cavalry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jan 81..........................  Sep 81............  Assistant S-3
                                                       (Operations), 1st
                                                       Squadron, 17th
                                                       Cavalry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Sep 81..........................  May 82............  Student, Armor
                                                       Officer Advanced
                                                       Course, U.S.
                                                       Armor School,
                                                       Fort Knox, KY
May 82..........................  May 84............  S-3 (Operations),
                                                       Combat Aviation
                                                       Squadron, 11th
                                                       Armored Cavalry
                                                       Regiment, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
May 84..........................  May 85............  Commander, B
                                                       Troop, 11th
                                                       Combat Aviation
                                                       Squadron, 11th
                                                       Armored Cavalry
                                                       Regiment, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
May 85..........................  Jun 86............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jun 86..........................  Feb 87............  S-3 (Operations),
                                                       Apache Training
                                                       Brigade, Fort
                                                       Hood, TX
Feb 87..........................  Jun 87............  Student, AH-64
                                                       Aviator
                                                       Qualification
                                                       Course, U.S. Army
                                                       Aviation Center,
                                                       Fort Rucker, AL
Jun 87..........................  Jun 88............  S-3 (Operations),
                                                       Apache Training
                                                       Brigade, Fort
                                                       Hood, TX
Jul 88..........................  Dec 89............  Executive Officer,
                                                       3d Squadron, 6th
                                                       Cavalry Brigade,
                                                       Fort Hood, TX
Dec 89..........................  Jun 91............  Executive Officer,
                                                       1st Battalion,
                                                       32d Armor, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Sep 91..........................  Apr 92............  Commander, 2d
                                                       Squadron, 2d
                                                       Armored Cavalry
                                                       Regiment, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jul 92..........................  Dec 93............  Commander, 3d
                                                       Squadron, 4th
                                                       Cavalry, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Dec 93..........................  Jul 94............  G-3 (Operations),
                                                       3d Infantry
                                                       Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jul 94..........................  Jun 95............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Jun 95..........................  Jun 97............  Commander, 2d
                                                       Brigade, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA
Jul 97..........................  Jan 99............  Commander,
                                                       Operations Group,
                                                       U.S .Army
                                                       National Training
                                                       Center, Fort
                                                       Irwin, CA
Jan 99..........................  Jun 00............  Assistant Chief of
                                                       Staff, Plans and
                                                       Policy Division,
                                                       Allied Forces
                                                       Southern Europe,
                                                       Regional Command
                                                       South, Italy
Jul 00..........................  Aug 02............  Commanding
                                                       General, National
                                                       Training Center
                                                       and Fort Irwin,
                                                       Fort Irwin, CA
Sep 02..........................  Sep 03............  Director of
                                                       Training, Office
                                                       of the Deputy
                                                       Chief of Staff, G-
                                                       3, U.S. Army, and
                                                       Chief,
                                                       Operations,
                                                       Coalition Forces
                                                       Land Component
                                                       Command,
                                                       Operation Iraqi
                                                       Freedom, Kuwait
Oct 03..........................  May 04............  Office of the
                                                       Deputy Chief of
                                                       Staff, G-3, U.S.
                                                       Army with duty as
                                                       Director, Army
                                                       Aviation Task
                                                       Force, U.S. Army
                                                       Training and
                                                       Doctrine Command,
                                                       Washington, DC
Jun 04..........................  Dec 05............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX
Dec 05..........................  Nov 06............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized)/
                                                       Commanding
                                                       General, Multi
                                                       National Division-
                                                       Baghdad,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Nov 06..........................  Jan 07............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX
Jan 07..........................  Aug 07............  Commanding
                                                       General, V Corps,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Sep 07..........................  Apr 10............  Deputy Chief of
                                                       Staff, G-3/5/7,
                                                       U.S. Army,
                                                       Washington, DC
Jun 10..........................  Present...........  Commanding
                                                       General, U.S.
                                                       Army Forces
                                                       Command, Fort
                                                       McPherson, GA
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Assistant Chief of Staff, Plans      Jan 99-Jun 00  Brigadier General
 and Policy Division, Allied
 Forces Southern Europe, Regional
 Command South, Italy.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Executive Officer, 1st Battalion,    Dec 89-Jun 91  Major/Lieutenant
 32d Armor, 1st Cavalry Division,                    Colonel
 Fort Hood, TX, and Operations
 Desert Shield/Storm, Saudi
 Arabia.
Director of Training, Office of      Sep 02-Sep 03  Brigadier General/
 the Deputy Chief of Staff, G-3,                     Major General
 U.S. Army, and Chief,
 Operations, Coalition Forces
 Land Component Command,
 Operation Iraqi Freedom, Kuwait.
Commanding General, 4th Infantry     Dec 05-Nov 06  Major General
 Division (Mechanized)/Commanding
 General, Multi-National Division-
 Baghdad, Operation Iraqi
 Freedom, Iraq.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal (with two Oak Leaf Clusters)
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with three Oak Leaf Clusters)
    Bronze Star Medal (with Oak Leaf Cluster)
    Meritorious Service Medal (with five Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal (with three Oak Leaf Clusters)
    Combat Action Badge
    Parachutist Badge
    Senior Army Aviator Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by GEN James D. 
Thurman, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James D. Thurman.

    2. Position to which nominated:
    Commander, United Nations Command/Combined Forces Command/U.S. 
Forces Korea.

    3. Date of nomination:
    May 4, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 19, 1953: Gainesville, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Delia L. (Hilton) Thurman.

    7. Names and ages of children:
    Jamie C. (Thurman) Brown, age 34.
    Carey L. (Thurman) Thomas, age 32.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army.
    Army Aviation Association of America.
    American Legion.
    Military Officer Association of America.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    In 2005, I received the Robert M. Leich Award from the Army 
Association of America for outstanding service to Army Aviation.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  James D. Thurman.
    This 13th day of February, 2011.

    [The nomination of GEN James D. Thurman, USA, was reported 
to the Senate by Chairman Levin on June 29, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 30, 2011.]
                              ----------                              

    [Prepared questions submitted to VADM William H. McRaven, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and subsequent reforms related to Special 
Operations Forces (SOF) have strengthened the warfighting readiness of 
our Armed Forces. They have enhanced civilian control and the chain of 
command by clearly delineating the combatant commanders' 
responsibilities and authorities and the role of the Chairman of the 
Joint Chiefs of Staff. These reforms have also vastly improved 
cooperation between the Services and the combatant commanders, among 
other things, in joint training and education and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Yes. Goldwater-Nichols did not meaningfully affect the 
Service manpower/personnel, acquisition, readiness reporting, training 
or other processes. U.S. Special Operations Command (SOCOM), in its 
daily interaction with all Services, must often address each issue in 
four different ways.
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. SOCOM needs greater personnel management authority to shape 
mid- and senior-grade SOF operators to meet SOCOM defined requirements. 
Promotions, selection for command, selection for advanced educational 
opportunities, foreign language testing policy, and foreign language 
proficiency bonus payment policy all differ significantly by Service 
and are all primarily crafted to support Service needs.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. From the perspective you have gained in your previous 
assignments, do you believe that the authority and responsibility of 
the combatant commanders, in general, and the Commander, SOCOM, in 
particular, are appropriate?
    Answer. Yes, I believe the combatant commanders generally have 
appropriate authorities. As the Commander of SOCOM, I would seek to 
clarify the responsibilities Geographic Combatant Commanders have for 
supporting their assigned Theater SOCOMs.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. By experience, training and education I have what is needed 
to lead this extraordinary force now and into the future. I have 
commanded at every level within the special operations community, 
including assignments as Commander Joint Special Operations Command 
(JSOC) and Deputy Commanding General for Operations at JSOC. My service 
in top leadership positions at both Service and joint headquarters has 
prepared me to operate at the senior levels of government, including as 
Director for Strategic Planning in the Office of Combating Terrorism on 
the National Security Council Staff. As Commander U.S. Special 
Operations Command-Europe, I gained valuable experience and built 
useful relationships with our North Atlantic Treaty Organization (NATO) 
and international special operations partners. I also established the 
Special Operations/Low Intensity Conflict curriculum at the Naval 
Postgraduate School.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander of SOCOM to the 
following offices:
    The Secretary of Defense.
    Answer. The Secretary of Defense is the SOCOM Commander's next 
superior command authority in the chain of command, as your 
introductory paragraph stated. If confirmed, I will look to the 
Secretary of Defense for operational authority to deploy and employ SOF 
as well as Department-level direction in the prioritization and 
accomplishment of the SOCOM mission. The SOCOM Commander owes the 
Secretary of Defense the commander's best military advice on all 
aspects of recruiting, training, equipping, managing and employing SOF 
in support of his, and the President's, national security objectives.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The SOCOM Commander coordinates activities through the 
Chairman of the Joint Chiefs of Staff. As the senior military advisor 
to the President and Secretary of Defense, the Chairman is essential in 
communicating SOF capabilities and requirements to the President and 
Secretary of Defense. Coordination of SOCOM activities ensures that the 
Chairman remains fully informed in support of his responsibilities and 
for coordination of SOCOM staff and the Joint Staff efforts to meet 
Presidential and Secretary of Defense directed taskings.
    Question. The Under Secretary of Defense for Policy (USD(P)).
    Answer. The USD(P) is the principal staff assistant and advisor to 
the Secretary of Defense and the Deputy Secretary of Defense for all 
matters on the formulation of national security and defense policy. The 
USD(P) develops, coordinates and oversees the implementation of a wide 
variety of Department policy, including matters related to planning, 
programming, budgeting, and execution of special operations activities, 
including civil affairs and psychological operations, and of low-
intensity conflict activities, including counter-terrorism, support to 
insurgency, and contingency operations. USD(P) also exercises 
authority, direction and control over the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict and 
Interdependent Capabilities (ASD(SO/LIC/IC)) who is responsible for 
overall supervision of special operations activities. If confirmed, I 
will work closely with USD(P) to ensure SOCOM activities are closely 
aligned with Department policies.
    Question. The Under Secretary of Defense for Intelligence (USD(I)).
    Answer. The USD(I) is the principal staff assistant and advisor to 
the Secretary of Defense regarding intelligence, counterintelligence, 
security, sensitive activities, and other intelligence-related matters. 
If confirmed, I will continue to work closely with USD(I), particularly 
to ensure the intelligence requirements of SOF in the field are met.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. The USD(AT&L) is the principal staff assistant and advisor 
to the Secretary of Defense for all matters relating to the DOD 
Acquisition System, including procurement; research, development, test 
and evaluation; military construction; and nuclear, chemical, and 
biological defense programs. If confirmed, I will closely coordinate 
SOCOM acquisition activities with USD(AT&L) to ensure SOCOM procurement 
efforts are closely aligned with Department procurement processes and 
priorities.
    Question. The Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict and Interdependent Capabilities 
(ASD(SO/LIC/IC)).
    Answer. The ASD(SO/LIC/IC) is the principal staff assistant and 
civilian advisor to the Under Secretary of Defense for Policy (USD(P)) 
and the Secretary of Defense on special operations matters. The 
principal duty of the ASD(SO/LIC/IC) is the overall supervision of 
special operations activities within the Department of Defense (DOD), 
including SOCOM. As I state in subsequent responses, the SOCOM 
Commander works closely with ASD(SO/LIC/IC) in the execution of his 
``Service-like'' authorities under 10 U.S.C. section 167.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. If confirmed, I will continue to work with the Assistant 
Secretary, and with U.S. European Command, U.S. Central Command 
(CENTCOM), and U.S. Africa Command, to ensure the effective employment 
of SOF capability in support of national security objectives in the 
Europe, the Middle East and Africa. I am particularly interested in 
developing an enduring relationship with the newly established NATO SOF 
Headquarters, and look forward to working with the Assistant Secretary 
in developing policies in support of NATO SOF Headquarters.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. If confirmed, I will continue to work with the Assistant 
Secretary, and with U.S. Pacific Command (PACOM), to ensure the 
effective employment of SOF capability in support of national security 
objectives in the Asian and Pacific regions.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. If confirmed, I will continue to work with the Assistant 
Secretary in developing SOCOM's role in Homeland Defense, and in 
support of civil authorities, to determine the special operations 
support necessary to protect the United States and its citizens during 
domestic emergencies.
    Question. The Assistant Secretary of Defense for Global Strategic 
Affairs.
    Answer. If confirmed, I look forward to working with the Assistant 
Secretary in support of his efforts to develop policy on countering 
weapons of mass destruction and cyber security issues, two areas of 
abiding interest for SOF.
    Question. The Service Secretaries.
    Answer. The SOCOM Commander's authority over the Service 
components, and those forces assigned to him, is clear in the 
Goldwater-Nichols Act, but requires close coordination with the Service 
Secretaries to ensure that SOCOM does not intrude upon each Service 
Secretary's legal responsibilities. Close coordination between the 
SOCOM Commander and each of the Service Secretaries is also essential 
to gaining and maintaining the Services' support of SOF with support 
units from the general purpose forces and with service-common materiel.
    Question. The Service Chiefs.
    Answer. Without the full support and cooperation of the Service 
Chiefs, the SOCOM Commander cannot ensure the preparedness of his 
assigned forces to execute his assigned missions. The Joint Chiefs are 
also a source of experience and judgment that every combatant commander 
may call upon. If confirmed, I will continue a full and frank dialog 
with the Service Chiefs.
    Question. The other combatant commanders.
    Answer. Successive SOCOM Commanders have fostered an atmosphere of 
teamwork and trust in their relationships with the combatant 
commanders. These relationships have only strengthened over the last 10 
years, and certainly since SOCOM has been responsible for synchronizing 
counterterrorist operations after September 11. If confirmed, I will 
continue to work closely with the other Combatant Commanders to achieve 
our common objectives against transnational terrorist threats and 
violent extremist organizations.
    Question. The Director of the National Counterterrorism Center.
    Answer. SOCOM is actively engaged in support of the National 
Counterterrorism Center (NCTC), and has been since it was established 
after September 11. SOCOM also relies upon NCTC estimates and reports 
in the refinement and synchronization of counterterrorist operations, 
and will continue to assist NCTC to achieve our common objectives 
against transnational terrorist threats and violent extremist 
organizations.
    Question. The Director of the Central Intelligence Agency.
    Answer. SOCOM and its subordinate elements are consumers of CIA 
products and analysis. If confirmed, I will ensure that SOCOM continues 
to develop interoperable capabilities so that, when directed by the 
President or Secretary of Defense, we may work efficiently in close 
partnership to accomplish our assigned missions.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the next Commander of SOCOM?
    Answer. I believe Admiral Olson, in his 2011 Posture Statement, 
clearly laid out the major challenges that will confront the next 
Commander of SOCOM. These seven major challenges are discussed 
individually below (not necessarily in priority order) and I have laid 
out what I believe are each of their main drivers.

    1.  Carefully and deliberately meet the ever-increasing demand for 
SOF.

    The SOF community has seen these challenges take shape over the 
last several years, and I see these same challenges continuing as SOF 
remain a first choice for many military operations.
    First, we must carefully and deliberately meet the ever-increasing 
demand for SOF. Since September 11, SOF manpower has roughly doubled, 
the budget has roughly tripled, and the overseas deployments have 
quadrupled. Demand is outpacing supply, but we cannot grow more than 3-
5 percent every year or we risk compromising the quality of the force. 
Simply stated, more SOF cannot be created overnight. Our ``new normal'' 
is a persistently engaged, forward-based force to prevent and deter 
conflict and, when needed, act to disrupt and defeat threats. Long-term 
engagement is a hedge against crises that require major intervention 
and engagement positions us to better sense the environment and act 
decisively when necessary. The ``new normal,'' however, translates into 
increased demand for SOF. The pace of the last 10 years is indicative 
of what we expect for the next 10 years.

    2.  Improve and expand our tactical and operational level skills, 
equipment, and systems.

    The strategic challenges facing our Nation are numerous and many 
may not be foreseen. Virtually all will continue to emanate from the 
incredibly dynamic and increasingly complex global environment. The 
next SOCOM Commander will be challenged to ensure our special operators 
are properly trained and equipped to fulfill the high degree of 
expectations the Nation places on our special operators. They must 
excel under the most demanding conditions while accomplishing some of 
the most difficult and sensitive tasks regardless of the environment or 
the difficulty.
    Our special operators are supported by technology, mobility and 
communications systems that allow SOF to share information, rapidly 
move, tactically maneuver, and strategically influence the 
environment--whether via direct strike or indirect means. Our 
technology edge needs to be maintained to retain the capability to 
execute our missions.

    3.  Preserve our proposed budget levels and authorities.

    Managing and preserving SOCOM's Major Force Program-11 (MFP-11) 
funding within the current and future budget discussions is perhaps the 
major challenge facing the next SOCOM Commander. At the forefront of 
this challenge is acknowledging that many of the current expenditures 
are funded by Overseas Contingency Operations (OCO) funding. The 
Department has made a commitment to phase the OCO funding into SOCOM's 
baseline requirement, but the command will continue to rely on OCO 
funding over the next few years as the phased transfer to the base 
budget occurs. The next SOCOM Commander must acknowledge our Nation's 
current fiscal condition will focus attention on the Department thus 
creating the challenge to preserving the baseline for MFP-11. The 
current and future demand for SOF capabilities and foundational 
activities will exceed force deployment capacity. SOCOM infrastructure 
and readiness accounts have not kept pace with SOF growth or demand. 
Current operations will pressure future development and limit required 
modernization and recapitalization efforts. While the new baseline 
budget will be questioned, the new SOCOM commander will be challenged 
to deliver the required capabilities in a fiscally constrained 
environment knowing the budget without OCO transition does not fully 
resource the command.
    Part of this major challenge includes monitoring and understanding 
the stress the Service budgets are facing and the impacts it will have 
on their ability to meet established and future SOCOM requirements for 
forces, capabilities and platforms. Operationally important Service 
provided capabilities that enable SOF success in the field will be 
stressed and potentially unfunded. MFP-11 is used to address ``SOF-
peculiar'' requirements; it cannot be used to deliver these basic 
building blocks or to generate new SOF capabilities to cover for 
fiscally limited service-provided capabilities.

    4.  Find better structures and processes to obtain Service-provided 
capabilities.

    With SOF growth constrained to 3-5 percent annually, effectively 
meeting the growing demand for our force can only be met through the 
commitment of the Military Services to attach supporting and enabling 
forces at a commensurate rate. It is a ``SOF Truth'' that most SOF 
operations require non-SOF support. This is true for the acquisition 
process, personnel policies, and the preparation and execution of the 
full range of SOF operations.

    5.  Continue to improve our acquisition speed and agility.

    ``More'' is not always the best answer and should not be the first 
answer. The speed and agility of SOCOM acquisition authority is 
achieved through Title 10 authority, its own budget line from Congress 
in the appropriation process, and being chartered to purchase non-
mainstream military equipment, also known as special operations 
peculiar equipment procured using MPF-11. MPF-11 grants SOCOM the 
authority to purchase equipment, material, services, and supplies 
required for special operations mission support for which there is no 
conventional service requirement.

    6.  Better understand the people and conditions in the places we 
go, whether to assist or fight.

    One of the Command's top challenges is to better understand the 
people and conditions in the places we go, whether to assist or fight. 
Indeed, understanding the operational context of the environments in 
which we operate is a hallmark of SOF.
    Our complex, dynamic world presents ambiguous problems that 
challenge our Nation's national security and interests. SOCOM's 
strategic appreciation of these challenges stresses the importance of 
deeper knowledge of micro-regional geography, history, languages, 
religions, cultures and traditions, to enable SOF to conduct its 
activities with more predictable outcomes.
    Developing this deep experience and high level of knowledge 
requires cultivating an agile intellectual posture within our force and 
maintaining persistent presence with partners and populations in 
diverse locations around the globe.

    7.  As our most solemn duty, look after the health and well-being 
of this magnificent force from whom we ask so much.

    As the Commander, I would consider it my responsibility to ensure 
we are doing the most we can to support our teams and families in 
recognition of the vital role they play in our national security--there 
is no greater responsibility.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer.

    1.  Carefully and deliberately meet the ever-increasing demand for 
SOF.

    I see the need to maintain the maximum growth rate of 3 to 5 
percent per year. I also see the need to match this growth and the SOF 
demand with commensurate levels of Military Services' provided 
capabilities that enable SOF to accomplish its mission. We were 
designed to rely on the Services to meet most of our combat support and 
combat service support requirements. I intend to continue SOCOM's 
efforts with the Services to implement a way to align SOF demand with 
these Service-provided capabilities.
    I will provide my best special operations military advice to the 
Chairman and the Secretary of Defense on how to best use SOF to ensure 
we are optimizing our contribution to national security. Given the 
competing demands for SOF, we will need to be judicious and rigorous in 
our approach to support the Geographic Combatant Commanders and to do 
our part in support of national strategies and global campaign plans. 
Not all missions are appropriate for SOF, and we must guard against 
accepting missions at the expense of those operations requiring our 
unique skills and capabilities.
    Lastly, if confirmed, I intend to continue the SOCOM initiatives to 
adapt how we train, deploy, and reset SOF for the ``new normal.'' The 
force is fraying, but we can stop the stress on the force by pursuing 
innovative ways that provide a predictable deployment pattern that 
accomplishes our missions while sustaining our force and protecting our 
people and families.

    2.  Improve and expand our tactical and operational level skills, 
equipment, and systems.

    Success increasingly depends upon the larger combination of 
defense, diplomacy, and development activities. Long term success will 
depend more and more on SOF individuals that are selected and have 
expertise for the regions that they are going to habitually operate in. 
Our culture and language programs can be augmented to enhance our sub-
regional and micro-regional knowledge, awareness and understanding. 
Efforts in training and personnel management can create better 
opportunities for our personnel to build the productive and enduring 
relationships we desire.
    In addition to a focus on the SOF operator, mobility enabling 
capabilities are a focal point in the existing SOCOM Strategic Plan; 
and technology areas seen as vital to intervention capability will also 
continue as focus areas for SOCOM research and development.
    Finally, we must preserve our SOF buying power by critically 
assessing what we buy and prioritizing that which is most important 
while ensuring that the required service-provided capabilities are 
properly resourced.

    3.  Preserve our proposed budget levels and authorities.

    First, I must ensure there is a clear understanding and support for 
the necessity of establishing and sustaining the new baseline budget 
through the transition of OCO funding into SOCOM's baseline. OCO to 
baseline does not grow the force; it only preserves the command's 
existing capabilities and current level of effort. The current and 
future demand for SOF capabilities makes this a top priority. 
Preserving MFP-11 budget levels is critical in ensuring SOF can meet 
the Nation's requirements, which is the SOCOM Commander's primary 
responsibility. MFP-11 provides for the advanced and unique training 
recently demonstrated in Pakistan. It enables the timely and flexible 
fielding of equipment, and the capability to rapidly and effectively 
project our force. A decrease in the Command's budget level would 
severely impact my ability to meet the demand for SOF and significantly 
increase the risk to our Nation's security. The importance of this 
issue is highlighted in the Command's fiscal year 2012 budget 
submission where 34 percent of the total MFP-11 request is OCO funding. 
For some higher intensity SOF elements, the OCO percentage is greater 
than 75 percent. Without this transition, mission failure is a real 
possibility.

    4.  Find better structures and processes to obtain Service-provided 
capabilities.

    For acquisition matters, regular Acquisition Summits with the 
Military Services create enhanced transparency and effectiveness in 
finding common solutions for Service-wide requirements, which in turn 
allows SOCOM to better invest in SOF-peculiar modifications and special 
capabilities. For operational matters, a new SOF Force Generation 
process (SOFORGEN) will be fully synchronized with the Military 
Services, and fully operational by fiscal year 2013. SOFORGEN will 
identify Service-provided requirements in advance, allowing the 
development of habitual relationships for training and operations, 
thereby ensuring best possible support to the Geographic Combatant 
Commanders.

    5.  Continue to improve our acquisition speed and agility.

    The speed and agility of SOCOM acquisition authority coupled with 
leveraging general purpose forces and service support mechanisms 
enables Special Operations to remain decisive on the battlefield. 
Working closely with the Services we have identified priorities to 
ensure there is no redundancy. We have taken the initiative to divest 
ourselves of equipment that is not core to the SOF mission. We have 
focused ourselves by disposing of obsolete, redundant or marginally 
beneficial capabilities. Leveraging acquisition ensures that special 
operations peculiar equipment necessary to confront the enemy is there 
when needed most and with the speed to ensure it meets the needs of the 
operator.

    6.  Better understand the people and conditions in the places we 
go, whether to assist or fight.

    SOCOM will maintain and support a number of initiatives the Command 
has recently developed and implemented, which have shown promising 
potential and early progress toward meeting these challenges. For 
example, SOCOM will continue to review and coordinate changes to 
Service personnel policies to further incentivize language pay for key 
languages such as Pashto, Dari and Arabic, and increase the number of 
career SOF individuals in advanced language training. In order to gain 
the greater levels of nuanced understanding possessed by indigenous 
populations, SOCOM will continue to strongly support DOD's Military 
Accessions Vital to the National Interest (MAVNI) and the Army's 
Intermediate and Advanced Language Programs (IALP) to recruit and 
access the requisite expertise provided by native speakers. 
Additionally, our attached female Cultural Support Teams (CSTs) allow 
us to reach key elements of the population in some environments which 
was not previously possible.
    Furthermore, SOCOM will continue to expand our base of global 
expertise, pursue every opportunity to strengthen our overseas 
presence, and develop meaningful personal relationships with key 
foreign military leaders. To enhance current battlefield effectiveness, 
SOCOM will strive for repetitive deployments by individuals and small 
teams to the same locations. More broadly, SOCOM will participate in 
academic symposia and seminars, and place SOF members in key positions 
in U.S. Missions abroad, as well as foreign military units and 
headquarters. In addition, SOCOM will pursue career incentives that 
place value on regional and micro-regional expertise and determine a 
process that allows us to track and assign Foreign Area Officers with 
prior SOF experience back into SOF units.

    7.  As our most solemn duty, look after the health and well-being 
of this magnificent force from whom we ask so much.

    SOF warriors face an increased operational tempo which will not 
abate even after eventual drawdown in Iraq and Afghanistan due to the 
nature of ``new normal'' strategic environment that will require 
increasing SOF presence. To help SOF warriors and their families cope 
with the psychological hardships that accompany extended separation and 
the trauma that comes from violent armed conflict, and most critically 
to our wounded warriors, SOCOM has created the Care Coalition and is 
committed to the Tactical Human Optimization, Rapid Rehabilitation and 
Reconditioning (THOR3) Program. Both programs work with governmental 
and non-governmental organizations, to provide top-notch, personalized 
support and to physically and psychologically wounded SOF warriors and 
their families at multiple locations throughout CONUS. Through the Care 
Coalition and the Chaplaincy, SOCOM will continue to focus on improving 
the standard of living, happiness, and support of SOF warriors and 
their families.
    Question. What are the most important lessons you have learned 
during your tenure in senior leadership positions in the special 
operations community?
    Answer.

    1.  The SOF operator is the ``platform'' for special operations and 
we must always remain focused on this over what he carries with him to 
execute the mission. While material is important, the operator is the 
primary concern.
    2.  The world's strategic environment has evolved toward one that 
is characterized more by Irregular Warfare activity rather than major 
nation state warfare. We must confront this ``new normal'' and posture 
our forces to be successful in it.
    3.  Partnerships are keys to success. The complex challenges of the 
world demand a more global approach to solving problems with those who 
share our interests. Part of the partnership building is within our own 
Interagency--building those relationships and trust that will build 
unity of effort in whole-of-government approaches to addressing 
problems.
    4.  Reputation is everything. We must work everyday to be the best 
that we can be, the most prepared, the best skilled operators in the 
world.
    5.  SOF continues to provide unique options for complex problems. 
The agility and diverse capabilities of our force, from long-term 
engagement to rapid lethal operations, make SOF a first choice for many 
military operations.

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commander of SOCOM?
    Answer. As the Commander of Joint SOCOM and a member of the SOCOM 
and SOF Board of Directors I helped to craft the Command's current 
touchstone priorities of Mission, People, and Equipment. I believe 
these have served the Command well and will continue to do so in the 
future. Specifically, if confirmed, I will focus my efforts to enhance 
our efforts under each area using the following focus areas:

        1.  Mission

                <bullet> Deter, Disrupt, and Defeat Terrorist Threats

                        <bullet> Plan and conduct special operations
                        <bullet> Emphasize persistent, culturally-
                        attuned engagement
                        <bullet> Foster interagency cooperation

        2.  People

                <bullet> Develop and Support our People and Families
                        <bullet> Focus on quality
                        <bullet> Care for our people and families
                        <bullet> Train and educate the joint warrior/
                        diplomat

        3.  Equipment

                <bullet> Sustain and Modernize the force
                        <bullet> Equip the operator
                        <bullet> Upgrade SOF mobility
                        <bullet> Obtain persistent intelligence, 
                        surveillance, and reconnaissance systems
                      civilian oversight of socom
    Question. The 1986 Special Operations legislation assigned 
extraordinary authority to the Commander of SOCOM, to conduct some of 
the functions of both a military service and a unified combat command.
    Which civilian officials in DOD exercise civilian oversight of the 
``Service-like'' authorities of the Commander, SOCOM?
    Answer. The ASD(SO/LIC/IC) is the principal staff assistant and 
civilian advisor to the Under Secretary of Defense for Policy (USD(P)) 
and the Secretary of Defense on special operations matters. The 
principal duty of the ASD(SO/LIC/IC) is the overall supervision of 
special operations activities within DOD, including SOCOM.
    SOCOM also coordinates with the USD(P), Under Secretary of Defense 
(Acquisition and Technology), USD(AT&L), and Under Secretary of Defense 
(Comptroller) on matters within their jurisdiction which touch upon the 
SOCOM Commander's ``service-like'' authorities under 10 U.S.C. section 
167. The SOCOM Commander and his staff works closely with USD(P), 
USD(AT&L), and the Comptroller, and their staffs, to ensure SOCOM's 
programs are aligned with DOD acquisitions policies and are 
appropriately funded.
    Question. In your view, what organizational relationship should 
exist between the ASD (SO/LIC) and the Commander, SOCOM?
    Answer. The ASD(SO/LIC/IC)'s role, as described above and in 
subsequent responses to your questions, describes the organizational 
relationship as it exists--and as it should continue to exist--between 
ASD(SO/LIC/IC) and the SOCOM Commander.
    Question. What should be the role of the ASD(SO/LIC) in preparation 
and review of Major Force Program 11 and the SOCOM's Program Objective 
Memorandum?
    Answer. ASD(SO/LIC/IC) is directed by the Deputy Secretary of 
Defense to provide overall supervision of the preparation and 
justification of SOF programs and budget; review and approve memoranda 
of agreement governing the SOCOM program, budget, and execution 
process; approve the SOCOM recommendations concerning which programs 
the SOCOM Commander will execute directly; review the SOCOM Program 
Objectives Memoranda (POM) and budget prior to submission to the 
Director for Program Analysis and Evaluation and the DOD Comptroller, 
respectively; and present and defend the SOF program to Congress, with 
the advice and assistance of the SOCOM Commander. I believe these 
duties describe the appropriate role for ASD(SO/LIC/IC) in oversight 
and support of SOCOM.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
research and development and procurement functions of the SOCOM?
    Answer. Working with the SOCOM Commander and the SOCOM Acquisition 
Executive, the ASD(SO/LIC/IC) advises and coordinates with the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USD(AT&L)) on acquisition priorities and requirements for special 
operations-peculiar material and equipment. I do not presently 
recommend any changes to ASD(SO/LIC/IC)'s role in research and 
development and procurement functions of SOCOM.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
operational planning of missions that involve SOF, whether the 
supported command is SOCOM, a Geographic Combatant Command (GCC), or 
another department or agency of the U.S. Government?
    Answer. Through his broad policy, coordination and oversight roles 
as the principle staff assistant and civilian advisor on special 
operations matters, the ASD(SO/LIC/IC) reviews the procedures and 
provides policy guidance to the SOCOM Commander on all aspects of 
special operations planning, including contingency planning when 
directed by the President or Secretary of Defense.

                          COMBATING TERRORISM

    Question. What is your understanding of the Department's strategy 
for combating terrorism?
    Answer. The current Unified Command Plan (UCP), 06 Apr 2011, 
designates the Commander, SOCOM, as responsible for synchronizing 
planning for global operations against terrorist networks, including 
the integration of DOD strategy, plans, and intelligence priorities for 
operations against terrorist networks designated by Secretary of 
Defense (Pg 24, Para 17). The Joint Strategic Capabilities Plan (JSCP) 
assigns Commander, SOCOM, the responsibility to prepare the DOD (vice 
SOCOM) Global CT Campaign Plan, and to perform as the global 
synchronizer for planning (JSCP fiscal year 2008, Enclosure G, Appendix 
A, Para. 2).
    Question. What are the roles and responsibilities of the Commander 
of SOCOM within the Department's combating terrorism strategy and how 
would you fulfill such responsibilities if confirmed?
    Answer. Practical implementation of global CT synchronization 
occurs throughout the development of the DOD Global CT Campaign Plan 
(CAMPLAN 7500) and its revisions, and in the parallel development of 
the GCCs' subordinate regional CT plans. Specifically, through the 
Joint Planning Working Groups, comprised and represented by all GCCs 
and FCCs, led by HQ SOCOM, regional objectives/intermediate military 
objectives, tailored 7500 Lines of Operation (LOO), and planning and 
assessment tasks, are agreed upon. Further, certain cross-area of 
responsibility (AOR) threat actor sets are assigned to specific GCCs 
for Supported or Supporting planning for Flexible Response Options. The 
regional (GCC) plans will have an in-progress review, either 
simultaneously or serially, at the Under Secretary level, allowing 
policy leader's visibility on GCC planning focus and priorities in each 
AOR.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. Joint Staff J5 and USD(P) leadership is vital to advise 
planners of changes in Department priorities (e.g. resource 
availability, threat focus, interagency issues, IPR types and 
scheduling) when they occur. Further, as the 's Global CT plan, CONPLAN 
7500's alignment with the key national strategic documents should the 
Secretary of Defense be validated from the policy perspective. Finally, 
the indirect LOO concerning partner capacity building and eroding or 
discrediting of violent extremist narratives are areas where the Joint 
Staff and USD(P) can provide oversight and collaboration guidance for 
interagency review and validation events such as Promote Cooperation.

                              AFGHANISTAN

    Question. What is your assessment of the current situation in 
Afghanistan? What are the weaknesses and shortcomings in the current 
effort to combat terrorism and insurgency in Afghanistan?
    Answer. General Petraeus' population centric campaign strategy is 
yielding its intended results. Although hard won, we are witnessing a 
reversal in Taliban Momentum since 2005, hundreds of Taliban are 
integrating, Government of the Islamic Republic of Afghanistan (GIROA) 
capacity is increasing, security force competencies are improving and 
the GIROA's span of influence is beginning to impact a larger segment 
of the rural population. Security and governance are evolving across 
the country and as a result we are seeing an incremental shift in 
popular opinion toward the GIROA. As you can readily recognize, a 
myriad of political, operational and economic challenges remain, but we 
are employing the appropriate methodology and it is producing success.
    Those weaknesses and shortcomings will arise not from the strategy 
or the efforts of our soldiers, marines, airmen, and civilians on the 
ground, but from diminished resourcing, lack of long-term commitment 
and any decrease in international assistance. These are the obstacles 
we must avoid to ensure success.
    Question. In your view, what is the appropriate role of SOF in 
Afghanistan, and the proper relationship between direct action and 
counterterrorism and counterinsurgency operations there?
    Answer. Counterterrorism (CT) and Counterinsurgency (COIN) are 
inextricably linked in Afghanistan. There must be a balanced and 
measured approach to their application. CT efforts including direct 
action shape the environment and create conditions necessary for the 
causes of instability to be address, enabling governance capacity 
development, Afghan Security Force evolution and economic opportunity. 
However, CT efforts by themselves, offer no long-term chance at 
establishing stability and it is for this exact reason that SOF-led 
Village Stability Program is so important for future progress.
    Question. General Petraeus and others have emphasized the 
importance of the Village Stability Operations (VSO) and Afghan Local 
Police (ALP) programs to the strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. VSO has focused on security, governance, and development 
simultaneously. It is a bottom-up approach linking governance to the 
village level. In the span of approximately 1 year, VSO has expanded 
GIROA influence in key rural areas from 1,000 Sq km to 23,500 Sq km 
today, roughly the size of the East Tennessee Valley or Lake Erie. 
Growth has been exponential since April 2010 and across Afghanistan we 
are witnessing increasing numbers of local communities requesting to 
participate in this GIROA program. Five sites have already transitioned 
to Afghan Government control, which is one measure of the GIROA's 
evolving capacity. The ALP program, the armed neighborhood watch 
association with VSO establishment by President Karzi has grown into 
the thousands and the Afghan Ministry of the Interior projects numbers 
nearing 10,000 by the summer of 2012. VSO has also enabled a massive 
expansion in small scale infrastructure development in these key rural 
areas. Approximately 2,000 development projects have demonstrated GIROA 
legitimacy in areas that have remained disenfranchised and ignored 
since 2001. These security and developmental successes combined with an 
aggressive GIROA governance mentoring effort are definitively changing 
popular attitude. It is empowering local communities, providing hope to 
historically disenfranchised segments of the population and as a result 
it is eroding support for the Taliban, denying them safe-haven and 
ultimately creating the conditions for long-term stability.
    As a result, the Taliban have mounted an aggressive intimidation, 
assassination and disruption effort against GIROA officials and 
supportive populations. Despite these efforts however, we are 
witnessing ALP capturing insurgents, District Leaders requesting 
permissions to participate in VSO and ALP. In the south and west and 
north, this trend continues and increasing numbers of low-level and 
mid-level Taliban leaders are seeking reintegration.
    Question. Do you believe the availability of U.S. Special 
Operations teams is a limiting factor in expanding these programs to a 
point where they can have a strategic impact in Afghanistan?
    Answer. Yes, the expansion of this effort depends largely now on 
the growth of SOF teams and enablers. Our combined teams are producing 
strategic changes presently and additional SOF force structure will 
demonstrably expand this effect across the country.
    Question. How do indirect approaches like Village Stability 
Operations and Afghan Local Police Programs compliment direct action 
counterterrorism missions within the U.S. strategy in Afghanistan?
    Answer. Village Stability Operations are the foundation of General 
Petraeus' population centric campaign strategy in key rural areas 
across Afghanistan. Counterterrorism efforts compliment these rural 
efforts by shaping and managing the security environment where these 
indirect approaches are pursued. One is no less or more important than 
the other; they are separate and distinct efforts that must, and are 
working in tandem to achieve immediate and enduring stability.
    Question. President Karzai has criticized ``night raids'' carried 
out by U.S. and coalition SOF in Afghanistan and alleged that they 
frequently result in civilian casualties.
    What steps have SOF taken to avoid civilian casualties and other 
collateral damage resulting from counterterrorism missions?
    Answer. This is a very sensitive issue for our SOF operating in 
Afghanistan. They have applied multiple approaches to minimize the 
potentialities for civilian casualties.

    1.  All of our forces receive formal instruction in theater 
tactical directives pertaining to civilian casualties (CIVCAS).
    2.  Every operation is conducted with our Afghan counterparts and 
they are always in the lead during entry of compounds and call-outs.
    3.  Escalation of force measures are strictly followed.
    4.  Full integration of Afghan Security Force leadership in the 
planning, execution, and post-operation phases has occurred to ensure 
full transparency and enable their leadership to balance risk, cultural 
considerations, and operational requirements.
    5.  Our Afghan partners, as well as our own commands strive to keep 
district and provincial political leadership appraised of all 
operations.
    6.  Employment of close air support and indirect forces is a more 
closely managed effort at every level of command today.

    CIVCAS is the exception today, not a commonality in SOF operations. 
These multiple efforts have a combined effect of reducing opportunities 
for CIVCAS and mitigating it when in the off chance it does occur.

                                PAKISTAN

    Question. The relationship between the United States and Pakistan 
has often been described as tumultuous and the effects on this 
relationship of the operation that killed Osama bin Laden on May 1, 
2011, remain to be seen. Concerns from senior Pakistani officials 
related to the presence of SOF in the country could negatively impact 
training and advising activities designed to counter al Qaeda, the 
Taliban, and the Haqqani Network.
    What is your assessment of the military-to-military relationship 
between the United States and Pakistan?
    Answer. Our military-to-military relationship with Pakistan remains 
positive overall, particularly at the unit level. However, periodic 
events within the region, oftentimes beyond the United States' or DOD's 
control, create temporary strains at the senior level. As with most 
military-to-military of this nature, relationships, personalities play 
a key role and must be maintained and nurtured over the long term. SOF 
has a long history of military-to-military relations with Pakistan. The 
creation and stand-up of the Office of Defense Representative--Pakistan 
(ODRP) and SOCOM Central (Forward)--Pakistan (SOC(FWD)-PAK) has 
enhanced and continues to foster our military-to-military relations 
with Pakistan. Since 2008, ODRP and SOC(FWD)-PAK have cultivated the 
military-to-military relationship on a daily basis with much success. 
Over the years, many enduring personal relationships have been 
established and benefit both Pakistan and the United States. I can only 
speak for U.S. SOF, but I expect it also holds true for ODRP that I 
expect these relationships and new ones to continue to grow and 
strengthen the relationship between Pakistan and the United States.
    Question. In your assessment, how important is the U.S.-Pakistan 
military-to-military relationship to the success of our 
counterterrorism strategy?
    Answer. Our national and military strategy is based on the direct 
and indirect approach. Our military-to-military relationships with 
Pakistan, along with other partner nations, are part of that indirect 
approach and are critical to the success of our counterterrorism 
strategy. The United States cannot win the war on terrorism alone. 
Wherever possible, we must garner support of partner nations so they 
can combat terrorism within their nations' borders. The Pakistanis are 
a key partner in the war on terror. Our military-to-military 
relationship has assisted the Pakistanis with their successes in 
countering insurgent networks within their borders. Maintaining a 
strong military-to-military relationship is vital for Pakistan to enjoy 
continued success. From training and equipping to infrastructure 
enhancements, all are key components in developing and fostering out 
military-to-military relationship with Pakistan. Maintaining a properly 
balanced U.S. military presence of SOF personnel and Office of Defense 
Representatives--Pakistan personnel enable us to cultivate and enhance 
our relationship.

                                  IRAQ

    Question. From your perspective as Commander, JSOC, what are the 
main ``lessons learned'' from Operation Iraqi Freedom and Operation New 
Dawn?
    Answer. Both operations have provided us with many lessons learned 
which we have incorporated into our current operations. Some of these 
lessons include: the need for a unified U.S. Government approach, 
active and integrated interagency coordination, the necessity for 
culturally attuned forces and the need to maximize combined operations. 
U.S. military and government efforts need to be synergized to provide a 
focused effort while reducing the likelihood of duplication and opposed 
efforts. Interagency integration is essential in our fight against 
violent extremism. Some of our greatest accomplishments would not have 
come to fruition without this coordinated effort. Our forces are now 
more culturally sensitive than ever before, greater language skills and 
incorporating female military personnel into our post operations 
activities have allowed our forces greater access and integration with 
the Iraqi and Afghan civilian populace. Lastly, we have maximized our 
combined operation efforts by working with and through the host nation 
forces. Every operation is coordinated with the Government of Iraq and 
Afghanistan and the Iraqi and Afghan Partnering Units. These combined 
operations are not only doing a tremendous job in accomplishing the 
mission but, also help enable and empower the Iraqi and Afghan SOF for 
future success.
    Question. As conventional forces continue to draw down in Iraq, SOF 
remain heavily engaged with their Iraqi counterparts. However, SOF rely 
on their conventional counterparts for many support and enabling 
functions including airlift, medical evacuation, resupply, and 
intelligence, surveillance, and reconnaissance.
    If confirmed, how would you ensure SOF are adequately supported in 
Iraq as the drawdown progresses?
    Answer. As we reduce our presence in Iraq, it will be essential 
that we make sure that our SOF continues to receive support. SOF will 
continue to provide assistance and support to Iraq Special Forces until 
relieved. U.S. Forces-Iraq (USF-I) is developing and refining their 
support plans as situations dictate. USF-I has instructed its forces to 
conduct detailed coordination and contingency plans to mitigate any 
degradation to SOF support. It will be crucial for SOF to maintain 
access to the key enablers you have already mentioned and more until 
the end of Operation New Dawn. SOCOM is postured to respond positively 
and provide SOF in support of CENTCOM missions. I will continue to 
ensure SOF operating in austere locations are provided the required 
support through detailed coordination and planning. Contingency plans 
to provide emergency assistance to U.S. SOF outside of the remaining 
U.S. bases will require alternate means of support which will take time 
to coordinate and execute.

                                 YEMEN

    Question. The U.S. Government has a robust security assistance 
program with Yemen to help enable Yemeni security forces to deal with 
the threat posed by al Qaeda in the Arabian Peninsula. Much of the 
training and advising activities under these assistance programs has 
been carried out by SOF.
    In light of the political situation in Yemen, what is your 
assessment of the most effective way the United States can advance its 
counterterrorism objectives there?
    Answer. Yemen is unique in the Arab world, with socio-economic 
indicators similar to the poorest African nations, and governance 
limitations that invite easy comparisons with some of the world's most 
vulnerable states. Current political turmoil and an uncertain Yemen 
Government are enormous challenges that face the Republic of Yemen and 
by extension, the U.S. counterterrorism policy. No other nation enjoys 
the level of influence with the Yemen Government than that of the U.S. 
counterterrorism initiatives with the Yemen Government contribute 
directly to a more stable security environment.
    Fiscal year 2011 International Military Education and Training 
funds will continue to be used to train and educate Ministry of Defense 
personnel, thereby increasing Yemen's versatility and utility as a 
coalition member. These funds will continue to provide equipment and 
training essential for Yemeni Counterterrorism Forces to combat 
terrorist groups, including al Qaeda in the Arabian Peninsula (AQAP). 
Increased funding levels for military assistance, particularly those 
that relate to training and equipping Yemeni counterterrorism forces 
will be essential for the Yemeni Government to neutralize the threat 
from AQAP within their borders. SOCOM and SOF will complement these 
activities with a carefully calibrated engagement in tribal areas of 
the country where violent extremists enjoy safe haven. Towards this 
end, we have established a close, working relationship with Yemen 
Counterterrorism Forces.

                      TERRORISM THREATS IN AFRICA

    Question. Over the course of the last few years, al Qaeda-inspired 
and affiliated groups in Somalia and the Trans-Sahara have continued to 
gain strength, leading many to express concern about their intent and 
ability to strike the interests of the U.S. and partner nations.
    What is your understanding of U.S. policy with regard to countering 
the threats posed by these groups?
    Answer. As with all our counterterrorist actions across the globe, 
we work in concert with the Geographical Combatant Commands and SOF is 
integrated as just one piece of the overall ``Whole of Government'' 
endeavor within U.S. Africa Command (AFRICOM) has laid out a 
comprehensive approach to building security capacity with partner 
nations across the continent. SOF will play a significant role in 
AFRICOM's four defense-oriented goals for their partner nations: having 
a capable military force, having professional security institutions, 
having the capability to defeat transnational threats, and increase 
Partner Nation support to international peacekeeping efforts. In 
assisting AFRICOM with these goals, basing, overflight and arming 
rights are just a few of the challenges confronting us. We need 
streamlined policy and procedures supporting rapid capacity building 
and information/intelligence sharing, in order to facilitate new and 
nurture existing partner relationships. We also understand this will 
all take place in a resource constrained environment. The difficult 
decisions facing Congress as you wrestle with the fiscal realities 
facing this nation will most definitely have an impact on our counter 
terrorist activities in Africa and across the globe.
    Question. Do you believe the Intelligence, Surveillance, and 
Reconnaissance (ISR) assets and other resources allocated to countering 
terrorism threats in Africa are adequate to understand and respond to 
the threats posed by these groups?
    Answer. A significant portion of the U.S. counterterrorism effort 
is focused on the CENTCOM AOR and they have received the lion's share 
of ISR assets. ISR is a high demand, yet finite resource, and in some 
areas, to include Africa, we have executed an economy of effort in 
tackling terrorist groups. As our Nation's activities in the Pakistan/
Afghanistan AOR change, additional ISR assets may be available to 
address AFRICOM's needs. DOD, with the outstanding support of Congress, 
continues to build more capacity, spotlighting other significant 
limiting factors within Africa such as communications, basing and 
overflight rights/agreements, information sharing with partner nations, 
and highly diverse language requirements across the continent. Given 
the tenuous nature of African governments and the difficulties 
associated with adding basing/footprint on the continent, we 
specifically envision the need for substantial sea-based ISR to support 
Africa CT operations. We will be in lockstep with AFRICOM as they 
tackle each of these challenges. SOF will be an integral part of 
AFRICOM's engagement program and will help lead their response to 
terrorist networks working on the continent.

        WESTERN HEMISPHERE TRANSNATIONAL CRIMINAL ORGANIZATIONS

    Question. General Fraser, Commander of U.S. Southern Command, 
recently testified that ``The northern triangle of Guatemala, El 
Salvador, and Honduras is the deadliest zone in the world outside of 
active war zones.''
    What is your assessment of the threat from transnational criminal 
organizations (TCO) operating in the Western Hemisphere?
    Answer. TCOs are a threat to our national security. They enable 
insurgencies and terrorism, and undermine state security and stability. 
An obvious outcome can be seen in the violence in Mexico and Central 
America. They have evolved into regional threats as seen with Mexican 
cartel members operating as far south as Peru. These threats must be 
addressed through multi-national, multi-agency collaborative efforts.
    Question. What do you believe is the appropriate role, if any, for 
SOF in countering these threats?
    Answer. SOF should continue to support SOUTHCOM and NORTHCOM's 
requirements to build the capacity of selected partner nation forces 
through training under Counter-Narcoterrorism and Joint Combined 
Exchange Training authorities. Where appropriate, U.S. SOF should be 
applied to advise and assist partner nation forces in planning 
operations against TCOs.
    Question. For more than a decade, Colombian security forces have 
worked in partnership with SOF to counter-threats similar to those 
described by General Fraser. This partnership has helped to enable the 
Colombians to significantly degrade the terrorist organization known as 
the FARC.
    What do you believe are the primary lessons learned from SOF 
training and advising activities in Colombia?
    Answer. SOF is mostly effectively applied when we have persistent 
presence, we train the right unit at the right level, and we exercise 
the appropriate authorities through Regional command and control 
structures.
    Question. Are there lessons learned that may apply to U.S. support 
to Mexico, Guatemala, El Salvador and Honduras in their efforts to 
counter the threats posed by transnational criminal organizations?
    Answer. SOF has the capability to train partner nation (PN) forces 
in a myriad of specialties that are ideal in combating transnational 
criminal organizations. Many of the security cooperation strategies 
used successfully in Colombia should be applied in other Western 
Hemisphere countries.

                              PHILIPPINES

    Question. What is your view of the effectiveness of the special 
operation forces assistance being provided to the Philippine military 
in its fight against terrorist groups?
    Answer. Although the focus of the 10 year old mission in the 
Philippines tends to be on the actions of the military unit against the 
most prominent terrorist groups, I want to emphasize that this has 
truly been, and continues to be, a multi-faceted approach. We have 
engaged with each branch of the Armed Forces of the Philippines (AFP) 
and Philippine National Police (PNP) using every available authority to 
help build capacity, while at the same time working to improve the 
image and public trust of both the AFP and PNP. Individual examples of 
these efforts range from Title 22 funded (using Navy and Air Force SOF) 
training to improve AFP aviation Night Vision Goggles and maritime 
capabilities, to 1206 funded procurement of precision munitions, to DOD 
funded Military Information operations efforts and Civil Military 
Support Element funded Civil Affairs projects. Additionally, diplomatic 
efforts, congressional interest and senior military engagement have 
solidified the willingness of the Philippine Government to maintain the 
pressure on the key terrorist groups. As a direct result of these 
combined efforts, the capacity and legitimacy of the Philippine 
Security Forces has been greatly improved. An assessment of the 
Operation Enduring Freedom-Philippines (OEF-P) mission is currently 
being conducted by Commander, PACOM.
    Question. If confirmed, what measures or guidelines will you employ 
to ensure that U.S. personnel do not become involved in combat in the 
Republic of the Philippines?
    Answer. Ultimately, it is the Commander, PACOM, who assesses the 
situation and coordinates with the Ambassador on the execution of OEF-P 
to include the size of the U.S. Force and its employment. In addition 
to the restrictions dictated by the Philippine Constitution, the 
current Secretary of Defense and Commander, PACOM, orders are very 
specific and clear on how U.S. Forces may work by with and through the 
AFP. Obviously the right to self-defense would allow any U.S. military 
element to protect itself if unexpectedly attacked by the enemy. As a 
direct result of the current rules of engagement, there have been only 
three combat-related deaths; all due to IEDs.

                                 PIRACY

    Question. Despite a significant and concerted international effort, 
which includes various U.S. agencies and the U.S. military, piracy in 
the northwestern Indian Ocean and the approaches to vital sea lanes 
through the Gulf of Aden continues largely unabated. Similar threats 
exist in other key areas including the Straits of Malacca.
    How do you assess the threat posed by piracy?
    Answer. Piracy operations directly threaten U.S. personnel and 
interests in these regions. Kidnap for ransom by pirates has recently 
led to the death of U.S. civilians. Piracy's biggest impact however, is 
economic. The seizing of cargo ships and ransom demands have harmful 
economic impacts to companies and countries. Anti-piracy efforts for 
ship protections and the deployment of military assets for prevention 
operations continue to require significant expenditures of funds and 
further strains limited military assets supporting these operations.
    The second and third order effects of piracy may lead to future 
destabilization in the affected areas. The resultant vast sums of money 
in these impoverished areas lead to the establishment of safe heavens 
for pirates and their support groups. These funds also further subvert 
the efforts of African Union Mission in Somalia and the Transitional 
Federal Government in Somalia to stabilize Mogadishu against violent 
extremist organization (VEO) groups.
    Question. What do you believe is the appropriate role, if any, of 
SOF in counter piracy efforts?
    Answer. NATO conglomerate, Navy capabilities, as well as Naval 
assets from coastal adjacent countries should lead the effort to deter/
prevent piracy. This includes patrolling pirate populated waters and 
identifying, boarding and where appropriate, engaging with and 
confiscating suspect vessels and collecting data on suspect pirates.
    Special operations involvement is currently limited in the counter 
piracy efforts. SOF support with unique capabilities when required. 
These capabilities involve maritime direct action, information 
operations and building partner capacity for maritime operations.
    SOF provide unique capabilities for execution of specialized 
missions worldwide. These capabilities can be incorporated into 
counter-piracy operations but due to the high demand, low density 
nature of SOF, they should not be the lead. Conventional maritime 
forces have capabilities better designed to deal with the full range of 
counter-piracy operations on the water. U.S. SOF should only be 
employed in extreme scenarios where the situation exceeds ability of 
conventional forces to respond adequately.
    Overall, with SOF current force structure and high demand worldwide 
for its capabilities, current U.S. policy does not warrant a high 
enough priority for the allocation of SOF assets against this mission 
since other forces have more relevant capabilities to deal with the 
full scope of counter-piracy operations.

              INTELLIGENCE SUPPORT FOR INDIRECT ACTIVITIES

    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department in 
Afghanistan and Iraq on special operators engaged in direct action 
operations. As a consequence, it is alleged, general purpose forces and 
SOF engaged in indirect activities, including foreign internal defense 
and population protection, receive less intelligence support.
    Do you believe this is true?
    Answer. No.
    Question. If so and if confirmed, how would you ensure SOF engaged 
in indirect activities receive adequate intelligence support?
    Answer. CONPLAN 7500 makes clear the primacy of indirect activities 
in combating VEOs, and the successful prosecution of that approach is 
predicated on the level of support given to those efforts, specifically 
intelligence support. SOCOM enables the indirect approach with an 
intelligence network focused on supporting Irregular Warfare, 
specifically on the tenets: Unconventional Warfare (UW), Foreign 
Internal Defense (FID), and Civil-Military Operations (CMO).
    At SOCOM intelligence support to IW is accomplished by the fusing 
of all source intelligence with cutting edge pattern analysis, imagery, 
and socio-cultural analysis (SCA) tools and analytic techniques. These 
efforts are coordinated by the SOCOM Joint Intelligence Center (JICSOC) 
and the Global Mission Support Center (GMSC), which provide network 
connectivity, 24/7 reachback support to deployed forces and Special 
Operations Task Forces, and coordination venues for ISR support.
    Although the support to the indirect approach is directed by SOCOM, 
the requirements themselves are byproducts of the constant interaction 
between the supported Theater Special Operations Commands (TSOC) and 
SOCOM. This interaction ensures the coordination of SOCOM intelligence 
support with that of the regional Joint Intelligence Operations Centers 
(JIOC). At SOCOM we realize that the majority of the GCCs are combating 
terrorism and VEOs in non-kinetic operations so providing tailored 
intelligence support to those missions is vital to successfully 
supporting the national security strategy.
    The Central Intelligence Agency, National Geospatial Intelligence 
Agency, National Security Agency, National Reconnaissance Organization, 
and Defense Intelligence Agency have all adapted very well to these 
indirect approach intelligence requirements. To be sure, there are 
always capacity challenges as we continue to conduct military 
operations in Iraq, Afghanistan, and still meet other global 
challenges, but on balance I am very appreciative of the support 
provided by the national intelligence agencies.

                        SECTION 1208 OPERATIONS

    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act (NDAA) for Fiscal Year 2005 (Public Law 108-375), as 
amended by subsequent bills, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by SOF to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 authority remains a key tool for SOF to 
operate by, with, and through an array of willing partners in Iraq, 
Afghanistan, the Horn of Africa, and other locations. These foreign 
regular and irregular forces leverage their natural access to 
locations, populations and information that are denied to SOF, but 
critical to our success. Their work is challenging and often carries 
significant personal risk. The training, equipping, and operational 
support provided to these partners by our forces under 1208 authority 
are absolutely essential to overall mission accomplishment. We are 
appreciative of Congress' continued support for this authority.
    Recent Interaction with Congress: DASD-SOCT (Garry Reid) 
accompanied by SOCOM reps provided a briefing on April 27 to House and 
Senate Armed Services Committee staffers that covered the fiscal year 
2010 annual report. The briefing was well-received, with no significant 
issues. There was some additional discussion on expanding the authority 
to go beyond combating terrorism.
    Future of the Authority: Rep Mac Thornberry (R-TX), Chairman of the 
Emerging Terrorism and Capabilities subcommittee of the HASC, has 
marked the House version of the NDAA for Fiscal Year 2012 with an 
increase in 1208 authority from $45 million to $50 million, and 
directed DOD to provide a report/briefing on the future of the 
authority to address CT, UW, and IW requirements.
    Expenditure trends (current authority is $45 million): (a) fiscal 
year 2010: $31 million spent of estimated $38 million requirement; and 
(b) fiscal year 2011 (to date): $9 million obligated of estimated $34 
million.

                         COUNTER-THREAT FINANCE

    Question. A number of officials in DOD and the Intelligence 
Community have called for applying more resources to identify, monitor, 
and halt the flow of money associated with terrorist networks and the 
illegal narcotics trade. Comparable efforts have been undertaken by the 
Joint Improvised Explosive Device Defeat Organization against the flow 
of money and components supporting the construction and employment of 
improvised explosive devices.
    What is your assessment of the value of counter-threat finance 
(CTF) activities?
    Answer. Finding, stopping, and via our law enforcement partners, 
freezing or seizing terrorist and narcoterrorist resources is immensely 
valuable in defeating current threat operations, disrupting future 
threat operations and ultimately in dismantling the enemy's carefully 
crafted facilitation networks. Money is the oil that keeps these 
illicit networks in operation, whether moving guns, jihadists, drugs, 
or illegal merchandise or persons. Sustained CTF activities are a 
critical part of any effective counterterrorism effort or campaign. CTF 
done well is preventive and thus highly cost effective.
    Question. What do you believe is the appropriate role, if any, of 
SOCOM in supporting CTF activities?
    Answer. The enemy's sustainment networks are global in nature, and 
to defeat them, our approach must be global as well. We are not 
effective against these threats when we constrain ourselves in archaic 
thinking that limits our field of action, whether geographically, 
functionally, or otherwise. Hence, SOCOM was recently designated the 
DOD Lead for CTF and that role should be maintained, possibly even 
expanded, to ensure DOD can operate effectively alongside and in 
support of our interagency partners.

                     SOCOM ACQUISITION AUTHORITIES

    Question. SOCOM is unique within the DOD as the only unified 
command with acquisition authorities and funding. Further, the 
Commander of SOCOM is the only uniformed commander with a subordinate 
senior acquisition executive.
    If confirmed, how would you ensure SOCOM requirements are 
adequately vetted and balanced against available resources before 
moving forward with an acquisition program?
    Answer. SOCOM has a robust requirements and programming process 
that is vetted through a Board of Directors consisting of leadership 
from each of the component commands. This disciplined process allows 
SOCOM to align available resources with requirements and to prioritize 
these requirements within our budget and future year programs.
    Question. What role can SOCOM's development and acquisition 
activities play in broader Service and DOD efforts?
    Answer. SOCOM is a microcosm of the entire Defense Department, and 
our challenges are very similar to investment requirements among the 
Services. SOCOM also has mature processes to conduct rapid evaluations 
of technology, systems, and concepts of operations, the results of 
which benefit SOF and are transferrable to the rest of the Department. 
SOF Acquirers specialize in the integration of emerging off-the-shelf 
technologies. This integration allows SOCOM to take the best from each 
Service as well as industry and modify or customize the equipment to 
meet special operations needs and rapidly field it to the force. Our 
success can then be shared with the Services to improve their 
capabilities. Some of the SOF technologies that have made their way to 
the Services include the MH-47 Chinook helicopter common avionics 
architecture system (CAAS) cockpit, an extended service life wing for 
the C-130, the MK48 lightweight machine gun, software defined tactical 
radios, and an improved sniper sight.
    Question. If confirmed, how would you ensure that Special 
Operations capabilities and requirements are integrated into overall 
DOD research, development, and acquisition programs?
    Answer. Although SOCOM generates and validates all SOF 
requirements, these requirements are provided to the Joint Staff for 
inclusion in the Joint Requirements Knowledge Management System. In 
addition, SOCOM has initiated acquisition summits with OSD, drawing 
together SOCOM, USD(AT&L), and the Service Acquisition Executives (SAE) 
where we discuss acquisition issues of common interest. For example, 
the SAEs agreed to synchronize technical and programmatic plans among 
all investment portfolios as well as explore initiatives to develop 
common architectures and standards across different future SOF and 
Service platforms. Additionally, USD(AT&L) agreed to develop a plan to 
address the standardization for certification and other Service test 
requirements between Services and SOCOM to gain efficiencies and 
promote common process reciprocity. Continuing that dialogue/exchange 
will remain one of my priorities.
    Question. If confirmed, how would you ensure sufficient resources 
are dedicated to the development of special operations-unique 
platforms, when required?
    Answer. Ensuring SOF not only has the resources to conduct today's 
operations but preparing ourselves for the future environment is one of 
my top priorities. The Board of Directors process allows the Command to 
take a strategic view of future requirements and achieve a balance. 
Since September 11, the MFP-11 budget has kept pace with operations, 
and the investment funding has allowed SOCOM to support these increased 
demands and acquire equipment as required.
    Question. If confirmed, what metrics will you use to determine the 
effectiveness of SOCOM technology development investments and whether 
SOCOM is investing sufficient resources in these efforts?
    Answer. We have created a series of technology roadmaps that assist 
us in identifying promising solutions to our problems. These roadmaps 
are schedule oriented, containing both the technology development 
timelines and the formal acquisition program schedules. As such, they 
have quantifiable metrics (cost, schedule, performance, and technology 
readiness) embedded in them.
    Question. SOCOM has undertaken a series of acquisition programs to 
fulfill its undersea mobility requirements. Both the Advanced Seal 
Delivery System and the Joint Multi-Mission Submersible programs were 
terminated and SOCOM recently initiated a new undersea mobility 
acquisition strategy.
    What lessons has SOCOM drawn from previous undersea mobility 
acquisition efforts and, if confirmed, how would you ensure they are 
incorporated into current undersea acquisition efforts?
    Answer. From our previous efforts, SOCOM learned that satisfying a 
wide range of undersea requirements with a ``one size fits all'' 
solution was challenging. As a result, we are pursuing a series of dry 
combat submersibles along with modifications to the dry-deck shelters. 
This diversified approach will allow us to meet our operational 
requirements by deployment from either a surface ship or via a dry deck 
shelter on a submarine.

                         ACQUISITION WORKFORCE

    Question. If confirmed, how will you ensure that SOCOM has an 
acquisition workforce with the skills, qualifications, and experience 
needed to develop and manage its acquisition and research and 
development programs?
    Answer. The SOCOM Acquisition Executive manages the SOF Acquisition 
workforce similar to the SAEs. SOF Acquirers are specialists in science 
and technology, acquisition, contracting, and logistics. They are 
operationally oriented, professionally trained and certified, and 
experts in the SOF-unique processes needed to meet the equipping needs 
of SOF. We are working with USD(AT&L) to expand our organic acquisition 
workforce, as well as create a unique identifier for SOF acquisition 
positions.

            TRANSFORMATION OF THE SPECIAL OPERATIONS FORCES

    Question. Much attention has been focused on the transformation of 
our conventional Armed Forces to make them more capable of conducting 
counterinsurgency and combating terrorism missions.
    Do you believe our SOFs need to be transformed as well?
    Answer. No, not in reference to the development of COIN or 
combating terrorism capabilities.
    Question. If so, what is your vision for such a transformation, and 
how would the transformation of conventional forces complement a SOF 
transformation, and vice versa?
    Answer. SOCOM and its components have featured counterinsurgency 
capabilities for many years. We have worked closely with the Services 
to prepare the total Joint Force, including conventional forces, to 
execute COIN and counterterrorism missions.
    The partnership between conventional forces and SOF is as strong as 
it has ever been. The extensive combat employment of both forces in 
shared battle spaces has increased the need to closely coordinate our 
operations. This has resulted in a sharing of tactics, techniques, and 
procedures (TTP) between SOF and conventional forces that has helped to 
increase conventional force capabilities to execute COIN and combating 
terrorism operations.
    The transformation of SOF needs to build on the hard combat skills 
we have honed over the last 10 years by adding to our ability to 
understand the operational environment and better discern the likely 
effects of kinetic and non-kinetic actions we take in complex and 
increasingly urbanized environments. One of the ways we will help in 
this transformation is to increase our language and cultural 
capabilities of our forces. This includes recruiting of both females 
and U.S. born citizens who speak certain specific languages and are 
knowledgeable about the socio-cultural aspects of these regions.

                SPECIAL OPERATIONS PERSONNEL MANAGEMENT

    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of SOF. 
One proposal would modify section 167 of title 10, U.S.C., to change 
the role of the SOCOM Commander from ``monitoring'' the readiness of 
special operations personnel to ``coordinating'' with the Services on 
personnel and manpower management policies that directly affect SOF.
    What is your view of this proposal?
    Answer. Ensuring we have the right people to perform SOF missions 
is paramount to our operational success. Service personnel policies 
significantly impact SOF retention--especially as they relate to 
compensation, development, and promotions. Changing Section 167 to 
reflect the word ``coordinating'' rather than ``monitoring'' will give 
SOCOM more influence than it currently possesses. The recently 
implemented DOD Instruction 5100.01 requires the Services to coordinate 
their personnel policies and plans with SOCOM. The ``coordination'' 
policy will provide SOCOM more visibility into personnel policy changes 
and initiatives. SOCOM is in the initial phases of working with the 
Services to put this policy into action. We're optimistic that the 
inputs provided by SOCOM during the coordination process will provide 
the influence needed to develop and retain the most capable SOF 
personnel.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The previous two Quadrennial Defense Reviews (QDR) have 
mandated significant growth in our SOF and enablers that directly 
support their operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. The growth we received during the previous two QDRs has 
served us well. We are still realizing these increases, with more than 
12,000 programmed personnel still to arrive in the next 4 years. The 
current commander has recommended that manpower growth not exceed 3 to 
5 percent annually and I agree with Admiral Olson that growing too fast 
will dilute capability and outpace the support structure we have in 
place. A gradual increase in capacity ensures that second and third 
order affects can be accounted without sacrificing the quality of the 
SOF operator.
    In your view, how can the size of SOF be increased, while also 
maintaining the rigorous recruiting and training standards for special 
operators?
    We are acutely aware of the risks of focusing on quantity rather 
than quality. In order to sustain our current growth rates at an 
acceptable level, we have stepped up our recruiting efforts and have 
enhanced our training pipelines to increase the throughput of our 
operators with no loss in quality.

                    READINESS AND OPERATIONAL TEMPO

    Question. The current Commander of SOCOM has described a 
``fraying'' of the SOF due to high operational tempo (OPTEMPO).
    What is the current dwell time ratio for SOCOM personnel?
    Answer. The calculation of dwell time varies depending on the 
context. Within the Global Force Management process, SOCOM is required 
to provide real time dwell calculations when responding to force 
requests.
    These responses are generated based on actual deployment data and 
current force structure. SOCOM has multiple unit types (e.g.: Special 
Forces Operational Detachment Alphas, SEAL Platoons, aircraft platforms 
and crews, Marine Special Operations Teams, et cetera); too many to 
list in this response. However, overall, the deployment to dwell ratio 
for SOCOM capabilities ranges between 1:0.8 and 1:2. The most requested 
tactical level units lie at the lower end of this scale while the 
higher level headquarters at the upper end. With the exception of 
Special Forces ODAs, the current dwell of forces closely relates to 
that projected in the Operational Availability 2010 assessment. This 
assessment accounted for force structure growth not yet realized. 
However, force demand has continued to outpace some programmed growth. 
For example, between August 2009 and August 2010, SOCOM added 36 ODAs 
to the inventory while ODA requirements increased by 37.5 percent.
    Question. In your view, how will shifting resources from Iraq to 
Afghanistan affect personnel tempo and dwell time ratios?
    Answer. While some special operations resources will shift from 
Iraq to Afghanistan, it most likely will not be a one-for-one offset. 
Some SOF will shift to support other operations as well. The demand for 
SOF worldwide is at such a high level that OPTEMPO will still have to 
be very carefully managed.
    Question. What can be done to increase dwell time for SOCOM 
personnel?
    Answer. SOCOM will continue to support the requirements of 
Geographic Combatant Commanders at the highest level we can sustain 
without ``breaking'' the force. In most cases, SOF are doing what they 
expected and wanted, and they feel good about their impressive 
contributions. That said, we will set and enforce maximum deployment 
rates for each element of the force.
    Much of the answer to the OPTEMPO challenge is in providing: (1) 
greater predictability, and (2) more opportunities to train closer to 
home when not deployed overseas.
    Today, due to the significant demand for SOF, many units conduct a 
combat rotation then, during their dwell period, will deploy for a 
shorter duration in order to support foundational (Phase-0 type) 
operations before again deploying for a combat rotation.
    Question. In your view, how has sustained high operational tempo 
impacted the readiness of special operations personnel?
    Answer. High OPTEMPO has had a number of impacts on SOF readiness:

    1.  CENTCOM Focus: Over the years one of the major hallmarks of SOF 
personnel has been regional expertise and language proficiencies for 
the key nations and/or non-state groups of the region. Since September 
11 the vast majority of SOF operations have taken place in CENTCOM AOR. 
As a result language proficiency and cultural awareness for other 
Geographic Combatant Commands has suffered.
    2.  The compressed time between deployments has had a major impact 
on the readiness of SOF forces. Opportunities to attend some schools 
and advanced training normally required for SOF personnel has been 
reduced or eliminated. Examples include reduced time for classroom 
language training/proficiency for all SOF; advanced Survival, Evasion, 
Resistance, and Escape School; lack of fixed wing aircraft available 
for live ordnance drops needed to train Joint Tactical Air Controllers; 
lack of vertical lift capability to train SOF ground forces and aircrew 
proficiency; lack of fixed wing refueling aircraft for helicopter in-
flight refueling and ships available to conduct deck landing 
qualifications. Insufficient availability of non-SOF ranges to support 
SOF training is a significant issue.
    3.  Equipment: The lack of CONUS equipment also impacts SOF 
personnel readiness. SOF aircraft are deployed at the maximum 
sustainable rate. The lack of CONUS-based rotary/tilt wing lift 
presents a serious readiness challenge for aircrew qualifications/
proficiency and training for SOF ground forces. Many of these assets 
are either forward deployed or in depot level maintenance. These 
equipment issues, coupled with compressed inter-deployment timelines, 
have had a significant impact on overall SOF readiness.

    Question. If confirmed, what actions would you take to reduce the 
negative impacts associated with high operational tempo of special 
operations personnel?
    Answer. First and foremost, we must instill the force sourcing 
discipline previously discussed to improve dwell time, reduce the high 
operational tempo, and therefore, reduce some of the negative impact 
resulting from the current operational tempo.
    Additionally, SOCOM must coordinate with the combatant commands and 
Services to ensure that we have developed the best possible force 
sourcing recommendation for combatant command requirements. In some 
cases, Conventional Forces or a combination of Conventional and SOF may 
provide a better solution than a solely SOF.
    A number of actions have already been taken to reduce some of these 
negative impacts on SOF. These include realigning Army Special Forces 
Groups to specific Geographic Combatant Commands in order for those 
personnel to regain cultural and language proficiencies; increasing 
language proficiency pays and training opportunities for all SOF 
personnel; contracting fixed wing aircraft as a short term ``fix'' for 
training Joint Tactical Air Controllers (JTAC); and maximizing CONUS-
based vertical lift assets for training SOF ground forces.
    In the future it is imperative we continue our close relationships 
with the Services in order to gain or maintain current access to 
various ranges and to utilize more military fixed wing aircraft for 
JTAC training. Other initiatives should include continued development 
and utilization of simulators as a substitute for a portion of live 
ordnance training requirements; creation of a SOF special pay based on 
the current aviation flight pay model; and continue or enhance current 
retention incentives for SOF personnel.
    Question. In your opinion, how has the high operational tempo 
affected the resiliency of SOCOM personnel, including rates of suicide, 
over the past several years?
    Answer. Trend analysis shows that SOF personnel, compared to the 
conventional force and the population in general, are more resilient 
and capable of successfully handling the stress of high operational 
tempo. The SOF community has become extremely responsive to the 
creeping ``fraying'' of the force as operational tempo has increased 
over the past several years. Successful preventative programs include 
Command Leadership, an in-depth assessment and selection process, 
prevention, treatment, and education.
    This responsiveness, based on proactive command leadership 
directives, significantly increased overall force resilience. These 
directives support the enhancement and availability of psychological 
support throughout the SOF community. The success of this program is 
based on a number of basic concepts:

    1.  A SOF peculiar application of ``Assessment and Selection'' of 
potential candidates has been critical to this process. Command 
leadership, combined with the use of embedded psychologists, assess all 
personnel and closely monitors those individuals with potential or 
actual issues.
    2.  This process enhances the ``Prevention'' aspect of the 
directive through training, education, and monitoring.
    3.  The key to this program is ``access to care'' within the 
Military Health System (MHS) when required. This has decreased the 
negative stigma associated with seeking professional psychological 
help.

                        RECRUITING AND RETENTION

    Question. How successful have the services been in recruiting and 
retaining the special operations personnel that are needed?
    Answer. In today's operating environment, the demand is much 
greater for SOF operators with varying languages, more cultural 
attunement, and regional expertise. Service recruitment efforts face 
many challenges as selection from the pool of eligible U.S. citizens 
and legal permanent residents are limited due to medical, educational, 
or conduct reasons. However, Service recruiting commands, in 
coordination with SOF component commands continue to be overall 
successful in recruiting SOF operators.
    Continued support for programs like Military Accessions Vital to 
the National Interest, which has great potential to alleviate some 
critical strategic language and cultural gaps is needed. Looking 
forward, the Services' recruitment must increase for those candidates 
who will bring ethnic, business, academic, technical and experimental 
diversity to SOF.
    Question. What are the biggest challenges to retention you see in 
the SOCOM community?
    Answer. The recent pressure on our force focus groups identified 
that one of the primary reasons personnel consider leaving the force is 
the lack of predictability for deployments to both named operations and 
to GCC theater security cooperation program missions--specifically, 
late shifts in deployment schedules and the insertion of new 
requirements.
    Question. What steps need to be taken, in your view, to meet the 
recruiting and retention goals of each of the Services' SOF?
    Answer. The Services need increased flexibility to incentivize 
those qualified individuals who choose the path to become special 
operators. We need your help in supporting programs that are beneficial 
to SOF and in maintaining recruiting budgets for the Services.
    Question. What monetary or non-monetary incentives do you believe 
would be most effective in this regard?
    Answer. SOCOM currently has a set of retention incentives programs 
focused on maintaining our most senior and most experienced SOF 
personnel: Critical Skills Retention Bonus (CSRB), Special Duty 
Assignment Pay (SDAP), Assignment Incentive Pay (AIP) and Critical 
Skills Accession Bonus (CSAB). These programs have been effective in 
retaining their target demographic.
    OSD directed a compensation study to verify the effectiveness of 
our current incentives programs. The OSD study is also looking at 
trends inside other demographics beyond our senior SOF personnel. This 
will give us the information we need to change or modify our existing 
programs. Trends are starting to show losses in our junior and mid-
career SOF personnel. Adapting our retention incentives to counter 
losses within our junior ranks will ensure they stay SOF until they 
become our senior SOF personnel.
    Prior to the initiation of the OSD study, SOCOM established a 
compensation working group composed of members of the SOCOM 
headquarters and the SOF Components. This working group was charged 
with gaining the approval of the Services to extend the current 
incentives and look at modifying our compensation plan based on being 
in a state of persistent engagement. The working group proposed a new 
compensation plan called SOF Career Pay or SCP (pronounced ``skip'').
    There are two primary intents incorporated into SCP: Predictability 
and Relative Parity. By institutionalizing the retention benefit, we 
eliminate the need for periodic revalidation and approval as with 
current incentive programs. However, periodic re-evaluation of the 
program is integrated into the proposal. SCP will provide 
servicemembers with a predictable and dependable retention plan which 
incentivizes them throughout their entire SOF career. One of the 
thought processes behind SCP is to ensure newly trained and mid-career 
SOF personnel remain in military service to become our experienced 
senior SOF personnel. Currently, our retention incentives' package 
focuses solely on senior SOF personnel. The Services will reap the 
long-term benefit of the time and resources invested into our SOF 
personnel. The second primary intent of SCP is relative parity across 
the Services by granting similar compensation to those possessing 
similar skills, experience, and mission sets.

                           DIVERSITY IN SOCOM

    Question. How do you define diversity in SOCOM?
    Answer. SOCOM's definition of diversity includes the traditional 
categories of minority representation and more. The ability to speak 
foreign languages, know the eccentricity of the region, blend into 
foreign environments, and understand the local cultures of our 
operating regions are invaluable skills which lends diversity to SOCOM. 
Diversity in application is our female Cultural Support Teams which 
allow us access to key populations in some environments which were not 
previously possible.
    Question. Do you believe that achieving greater diversity in SOCOM 
is a priority?
    Answer. Yes, diversity is an operational necessity for SOF. SOF 
engagement continues to grow into populations with varied societal 
values. SOF success is impacted by our ability to assess and adapt on 
multiple fronts. As such, SOF members must possess a broad range of 
skills and backgrounds.
    Question. If confirmed, what steps would you take to ensure that 
continued progress toward diversity goals is achieved without violating 
reverse discrimination principles of law?
    Answer. If confirmed, I will work with Senior DOD leadership and 
the Services to identify future operational requirements and support 
funding for them. The ability to recruit the right people, with the 
right skills, means establishing the right target goals.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. What is your assessment of current sexual assault 
prevention and response policies and procedures in SOCOM?
    Answer. The Military Services have primary responsibility to ensure 
sexual assault response personnel (Sexual Assault Response Coordinators 
(SARC), Victim Advocates, medical and mental health providers, and 
criminal investigation personnel) are well trained to support victims, 
investigate and respond to allegations of sexual assault. If resources 
are not readily available where the alleged incident occurred, victims 
are transported to a facility where there is appropriate victim 
advocate support, medical and psychological care (regardless of 
service) and investigative/legal support.
    The Joint Staff remains a key partner with the Services and OSD in 
the campaign against sexual assault. Additionally, the Joint Staff 
works closely with the combatant commands during the development of 
operational plans and personnel policy guidance to ensure the 
prevention and response to incidents of sexual assault is addressed.
    Prevention of sexual assault is a leadership responsibility. 
Commanders at all levels must remain committed to eliminating sexual 
assault within our forces by sustaining robust prevention and response 
policies; by providing thorough and effective training to all assigned 
servicemembers, by identifying and eliminating barriers to reporting; 
and by ensuring care is available and accessible.
    Question. Do you consider current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Yes. For a multitude of reasons, sexual assault has 
historically been an under-reported crime. Restricted reporting has 
been effective. Although the use of restricted, or confidential, 
reporting doesn't allow a commander to investigate alleged assaults, it 
does allow a sexual assault victim to confidentially receive medical 
treatment and counseling without triggering the official investigation 
process.
    Unrestricted reporting supports a sexual assault victim who desires 
medical treatment and counseling--but also provides for official 
investigation of his or her allegations within existing administrative 
reporting channels (such as their chain of command, law enforcement or 
through the SARC).
    As our military members' confidence in the reporting and 
investigative policies and procedures improve, I believe and certainly 
hope that more victims will choose unrestricted reporting. This will 
ultimately increase offender accountability.
    Question. What is your view of the adequacy of the training and 
resources SOCOM has in place to investigate and respond to allegations 
of sexual assault?
    Answer. The Services are responsible for training sexual assault 
response personnel to ensure they are well-trained to investigate and 
respond to allegations of sexual assault. For example, in March of this 
year, the Army opened phase three of its Intervene Act Motivate 
(I.A.M.) Strong program. The four-phase program emphasizes that leaders 
must understand their responsibilities to ensure victims of sexual 
assault receive sensitive care and support and are not re-victimized as 
a result of reporting the incident. It also provides tangible 
guidelines to help Army leaders remain alert to, and respond 
proactively to, incidents of sexual assault. Improved training for 
investigators is also a priority and this includes investigative 
resources in deployed areas. As you may imagine, the combat environment 
and deployed operations are very dynamic and investigative resources 
are often strained by other mission requirements. Remoteness of 
locations, availability of transportation, or the level of ongoing 
operations may complicate access to resources. I believe the DOD 
training network in place now prepares investigators to handle sexual 
assault cases in a caring, responsive, and professional manner. Our 
ability to respond and support victims is critical.

                            WOMEN IN COMBAT

    Question. The expanding role of women and the implementation of 
women-in-combat policies in the Armed Forces is a matter of continuing 
interest to Congress and the American public.
    Answer. Prior to 1994, DOD Ground Combat Exclusion Policy 
prohibited assignment of female servicemembers to units expected to 
engage in direct ground combat. The NDAA for Fiscal Year 1994 repealed 
the U.S. Code that supported that policy (10 U.S.C. 6015), and required 
the armed services to issue policy/orders governing the same. The 
Secretary of Defense issued a ``Direct Ground Combat Definition and 
Assignment Policy'' on 13 January 1994 that took effect on 1 October 
1994. In part, that policy states:

    a.  Rule. Servicemembers are eligible to be assigned to all 
positions for which they are qualified, except women shall be excluded 
from assignment to units below the brigade level whose primary mission 
is to engage in direct combat on the ground, as defined below.
    b.  Definition. Direct ground combat is engaging an enemy on the 
ground with individual or crew served weapons, while being exposed to 
hostile fire and to a high probability of direct physical contact with 
the hostile force's personnel.''

    Additionally, the NDAA for Fiscal Year 2011 required DOD and the 
Services to review all laws, policies and regulations restricting 
service of female members of the Armed Forces. DOD is expected to 
provide its report to Congress by October 2011.
    Question. What is the current SOCOM policy regarding the role of 
women in SOCOM operations?
    Answer. SOCOM follows the DOD policy. Recently, SOCOM sought and 
was granted approval from USD(P) to attach females to select SOFs in 
order to perform activities that are inappropriate for males to 
accomplish, i.e. assisting in the searching of and engaging with women 
and children. This approval is in full compliance with established DOD 
policy.
    Question. What is your view about changing the policy to allow 
female military personnel to be assigned to SOCOM units?
    Answer. Many female military personnel are already assigned to SOF 
units in a variety of roles. In order to explore opportunities to 
expand the participation of females in operational activities, SOCOM 
fully supports the DOD's efforts to review all laws, policies and 
regulations restricting service of female members of the Armed Forces 
as directed by the NDAA for Fiscal Year 2011.

              LANGUAGE AND CULTURAL AWARENESS CAPABILITIES

    Question. Deployed special operations personnel are heavily 
concentrated in the CENTCOM theater of operations, including many who 
have been deployed outside of their regional area of expertise.
    Are you concerned that the language and cultural skills among SOF 
are being degraded because of repeated deployments outside their 
regional area of expertise?
    Answer. Rotational deployments of units not regionally aligned to 
the CENTCOM AOR have indeed taken a toll on the language, regional 
expertise, and culture capabilities of those units for their aligned 
regions. OPTEMPO limits our ability to retain and retrain for primary 
areas of responsibility while still preparing for the next CENTCOM 
deployment. This is being addressed to a degree by our force structure 
growth, however, that growth places increased stress on our training 
resources.
    OPTEMPO continues to reduce our ability to send mid and senior 
grade operators to advanced regional education and professional 
development programs such as Foreign Professional Military Education 
(FPME) and the Regional Centers program. We leverage these programs to 
improve specific regional acuity and cultural understanding.
    Over the last year, we have improved as a command with getting 
operators to Regional Centers, however during the previous 2 years we 
pulled primarily from the senior grade SOCOM HQ Staff officers due to 
operational units executing rotational deployments. Therefore, the 
return on this investment was limited by our decreased ability to send 
mid-grade operators, with longevity in SOF, to build core capability 
and long-term regionally focused relationships.
    Question. If so and if confirmed, what, if anything, would you do 
to ensure these unique skills are adequately maintained?
    Answer. SOCOM set new, higher language capability requirements for 
its components in 2009. Since then, the SOF Service components 
significantly ramped up and improved training processes. The HQ, SOCOM 
also worked recruiting, language proficiency pay, and other policy 
issues to help facilitate higher capabilities within SOF organizations. 
Following through on these initiatives and ensuring the resources 
necessary for their continuation will remain priorities for the 
Command. The SOF Service components are actively engaged in 
implementing their programs and SOCOM will continue to engage the 
Department and Services to this end. Policy issues we continue to 
pursue include native/heritage recruiting, valuing language and 
regional capabilities in selections and promotions, language testing 
and incentives, maintaining DOD funded Defense Language Institute 
detachments at some of our components, adding SOF specific school 
billets and funding from the Services for foreign education, and 
encouraging the Services to award Intermediate Level Education and 
Senior Level Education equivalency for FPME programs.

             MARINE CORPS FORCES SPECIAL OPERATIONS COMMAND

    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a subordinate component command to SOCOM established in 2005.
    What is your assessment of the progress made in standing up and 
growing MARSOC, and what do you consider to be the principal issues 
that you would have to address to improve its operations?
    Answer. MARSOC was ordered established in November 2005 and 
actually activated on February 24, 2006. Since that time, MARSOC has 
made great strides developing and deploying relevant forces in support 
of SOCOM and the GCC's. Support from both SOCOM and the Marine Corps 
have been good. Even though MARSOC represents only 5 percent on SOCOM's 
total force, they have been aggressively employed as they continue 
their force build. In fact, MARSOC has conducted over 150 deployment to 
18 countries since activation, and has 2 full Marine Special Operations 
Companies continually present in Western Afghanistan, as well as having 
just recently completed its second Special Operations Task Force HQ's 
deployment there. Over the last 5 years, they have also completed their 
Critical Skills Operator training pipeline, screening applicants with a 
rigorous Assessment and Selection process and then training those 
selected marines in SOF operations through an 8 month Individual 
Training Course. MARSOC has similarly built a training pipeline for all 
its inherent Combat Support personnel in order to ensure all their 
deployed marines and sailors can conduct well integrated operations 
once deployed. Finally, I want to mention the superb working 
relationship between the Marine Corps and SOCOM. Over the next several 
years MARSOC will grow by an additional 1001 active duty Marine 
billets, occupy state of the art training and living facilities 
currently under construction and continue receiving next generation 
SOF-peculiar and Service common equipment. The Military Construction 
program produced significant mission support capability through 
delivery of facilities at Marine Corps Bases Camp Lejeune and Camp 
Pendleton, with plans to deliver additional facilities to accommodate 
capacity shortfalls. The interrelated relationship between the Marine 
Corps and SOCOM not only solidified the Marine Corps role as an equal 
partner in the SOF community, but also expanded the SOF capacity and 
capability that our Nation needs at this critical juncture in the war 
on terror. So, I would assess MARSOC's progress over the past 5 years 
as tremendous.
    As to the principle issue remaining, I believe that MARSOC's 
greatest challenge is the management of its continued growth as it 
moves toward Full Mission Capability. We currently project that MARSOC 
will be fully manned with critical skills operators in fiscal year 
2014. The 1,001 additional CS and CSS marines previously mentioned will 
be assigned to MARSOC from fiscal year 2013-2016. This uniformed 
growth, with an accompanying growth in civilian structure, will allow 
MARSOC to fully deploy and employ their robust capability of one Marine 
Special Operations Regiment (consisting of three battalions, each with 
four companies, with each company containing four teams), one Marine 
Special Operations Support Group (made up of all the Combat Support and 
Combat Service Support necessary to support MARSOC operations) and one 
Marine Special Operations School (conducting Assessment and Selection, 
the Individual Training Course, and follow-on Advanced Courses).
    Question. What unique attributes, if any, does MARSOC contribute to 
the capabilities of SOF?
    Answer. MARSOC brings several unique attributes to SOCOM:

    1.  First, they are marines, and they bring a marine perspective to 
all their efforts. This perspective, though not easy to quantify, is 
very valuable and the results speak for themselves. They certainly are 
very agile and can rapidly reorganize and adapt in order to address new 
or emerging requirements.
    2.  Second, MARSOC has been leading the effort to completely 
integrate Intelligence and Operations at the lowest possible level. To 
that end, they have task organized their 14-man Marine Special 
Operation Teams with additional Intel Marines and all the equipment 
necessary to collect and fuse locally collected intelligence. Their all 
source intel analysis allows the team to conduct organic, bottom-up 
targeting/engagement. The local battlespace dominance and distributed 
operations we see MARSOC conducting in Afghanistan today are proof of 
the value of this concept and the 1,001 marines being added to MARSOC's 
structure include a large number of Intel Marines to further bolster 
this capability.
    3.  Third, MARSOC brings a unique Command and Control mindset and 
capability to SOCOM. As marines, coming from a Marine Air-Ground Task 
Force background, they are experienced and comfortable with ground 
elements, aviation elements and logistics elements combined within a 
single command and adept at tying all those efforts together into a 
cohesive effort. MARSOC has twice deployed Special Operations Task 
Force Headquarters to Afghanistan, provided Command, Control, 
Coordination and Support to Special Operation Forces spread of 100,000 
square miles. At the lower levels, Marine Special Operations Companies 
routinely operate and direct the operations of SEALs, Special Forces 
and even foreign SOF elements in conjunction with their own inherent 
teams.

    Question. Recently, the Marine Corps approved a primary military 
occupational specialty (MOS) for enlisted marines trained as special 
operators allowing these personnel to remain in MARSOC for their 
professional careers.
    Do you believe officers should have a similar opportunity as 
enlisted marines to serve the duration of their military career in 
MARSOC rather than rotating through the command as they do currently?
    Answer. Officers who attend the individual training course are 
assigned to MARSOC for a 4 year tour instead of the traditional 3 
years. They also receive designation with an additional MOS (0370) to 
ensure their MARSOC service and training are highlighted in their 
record. With the 0370 designation, these officers can then be tracked 
and their records reviewed for the potential of follow on assignments 
back to MARSOC. However, the number of officers assigned to the 
operating forces at MARSOC is very small. My initial impression is that 
retaining certain officers within MARSOC for their entire career would 
impose some manpower management difficulties on the Service, but the 
topic is worthy of discussion between myself and the Commandant, 
particularly as we move closer toward the completion of MARSOC manning 
in fiscal year 2016.

                      SPECIAL OPERATIONS MISSIONS

    Question. In recent years, SOF have taken on an expanded role in a 
number of areas important to countering violent extremist 
organizations, including those related to information and military 
intelligence operations. Some have advocated significant changes to 
SOCOM's Title 10 missions to make them better reflect the activities 
SOFs are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. SOCOM and SOF senior leaders are in the process of 
reviewing the current list of SOF core activities, as listed in DOD 
Directive 5100.01, to ensure it captures the ``new normal''. The 
outcome of this review could become the basis for a future update to 
the Directive and other key documents.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. SOCOM and SOF senior leaders are in the process of 
reviewing the current list of SOF core activities, as listed in DOD 
Directive 5100.01, to ensure it captures the ``new normal''. The 
outcome of this review could become the basis for a future update to 
the Directive and other key documents.
    Question. What can be done to ensure that indirect SOF missions 
with medium- and long-term impact, such as unconventional warfare and 
foreign internal defense, receive as much emphasis as direct action, 
and that they receive appropriate funding?
    Answer. Indirect SOF missions are part of what the Department now 
calls foundational activities. The foundational activities which SOF 
perform have not necessarily lacked emphasis, but rather took a back 
seat during the last decade as SOF surged in Iraq and Afghanistan. 
Therefore, today we have plenty of resulting pent up demand. Moreover, 
we expect a future increase in the requirement for SOF to conduct 
foundational activities, as an evolved defense strategy premised on 
conflict prevention takes root. Accordingly, I do not see a lack of 
emphasis as being a future issue for SOF foundational activities. 
However, appropriate funding and authority are key. First, I believe 
Secretary Gates and Secretary Clinton's current proposal before 
Congress to create a Global Security Contingency Fund (GSCF) that would 
provide assistance for security forces, rule of law, and stabilization 
is indispensable to the future success of SOF foundational activities. 
(Both departments would contribute resources to the GSCF and have a say 
in its allocation, creating a real incentive for integrated planning 
and prioritization.) Accordingly, I recommend Congress pass it as 
proposed in the current legislative session. Second, we appreciate 
Congress' ongoing support for section 1206, which we view as one of our 
most critical tools for building the capacity of partners to conduct 
counterterrorism operations and fight alongside us in stability 
operations. Third, increasing the resources at the Department of State 
for this work is essential. The Foreign Military Financing program 
provides a structure for long-term partner capacity development 
essential to future missions, but it is not sufficiently resourced to 
meet important needs.

                  MAY 1, 2011, OPERATION IN ABBOTTABAD

    Question. The successful operation on May 1, 2011, which resulted 
in the death of Osama bin Laden, was a significant victory in the armed 
conflict against al Qaeda and affiliated organizations.
    What do you view as the most important factors that contributed to 
the success of this operation?
    Answer. The operation was successful due to excellent interagency 
cooperation, operational security, and the tenacity and flexibility of 
the operators involved to adjust to any contingency that they 
encountered.
    Question. What steps need to be taken, in your judgment, to ensure 
that the capabilities of SOF to undertake similar missions in the 
future are maintained and improved?
    Answer. SOCOM must maintain the ability to rapidly take full 
advantage of cutting edge technology that will allow our SOF operators 
to gain the edge on an increasingly sophisticated advisory. But 
developing new technology from scratch is too time consuming and 
expensive so SOF must continue to be innovative in utilizing and 
modifying commercial off-the-shelf technology to support our missions. 
In addition, the key factor in any operation is the operator. 
Maintaining high standards, challenging training environments, and 
encouraging ingenuity develops unique and valuable operators. Finally, 
continuing to break down barriers between the various Agencies and 
Departments allows for increased cooperation and synchronization, 
allowing the U.S. Government to successfully accomplish the mission.

                    MILITARY INTELLIGENCE OPERATIONS

    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the intelligence community?
    Answer. SOF intelligence operations follow all existing policies 
and regulations guiding DOD and interagency activities. One key 
difference is the speed of special operations activities. SOF has 
refined the find, fix, finish, exploit, analyze (F3EA) intelligence 
cycle to support the cycle rate of SOF activities. The F3EA process is 
now being migrated to conventional forces. SOF have also placed a 
premium on sensitive site exploitation (SSE) and the collection and 
registration of biometrics data from the battlefield. SOCOM elements 
have developed a series of joint interagency task force nodes, both in 
deployed areas and in CONUS, that bring together expertise from all our 
interagency partners. Their specific expertise in SSE, combined with 
the methodology of the F3EA process, drives special operations on a 
much faster operational cycle than conventional operations. SOF 
maximizes interagency contributions through reachback, deconfliction 
and coordination of activities between agencies, which allow our forces 
to get inside the enemy's decision cycle.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by SOF are coordinated adequately with other 
activities carried out by those in the Intelligence Community?
    Answer. SOCOM will continue to follow all applicable intelligence 
community directives, report required sensitive activities to the 
USD(I), maintain the robust intelligence oversight processes in place 
involving our Inspector General, Staff Judge Advocate, and our Command 
Oversight Review Board. I will maintain and build upon the 
relationships developed over time with the numerous Federal 
intelligence and law enforcement agencies represented in our 
Interagency Task Force in Tampa. Additionally, SOCOM will continue to 
employ and leverage our liaison officers, which we call Special 
Operations Support Team members, to coordinate with agencies in the 
National Capital Region. Interagency collaboration is a significant 
contributing factor in many of our biggest successes.

               SPECIAL OPERATIONS PERSONNEL IN EMBASSIES

    Question. SOCOM deploys personnel to work with country teams in a 
number of priority countries where the United States is not engaged in 
direct action operations, but rather trying to stop the spread of 
violent extremism. Their mission is to support the priorities of the 
Ambassador and the geographic combatant commander's theater campaign 
plan against terrorist networks. At times, Ambassadors have complained 
that they have not been adequately informed of activities by SOF in 
their country.
    If confirmed, what do you intend to do to make sure the goals of 
special operations personnel deployed to these countries are aligned 
closely with those of the Ambassadors they are working with?
    Answer. SOCOM has two persistent, strategic avenues to engage with 
and inform the Embassy leadership of SOF capabilities and operations, 
the Ambassador Orientation Visit (AOV) Program and the Special 
Operations Liaison Officer (SOLO) Program.
    The AOV provides future Ambassadors the opportunity to visit SOCOM 
headquarters, receive briefings on SOCOM unique capabilities and 
responsibilities, as well as regionally targeted introductions 
considerate of their newly assigned posts. During the program the 
ambassadors have a 1-hour one-on-one discussion period with their 
respective TSOC Commander and a 1-hour session with the SOCOM 
commander. To date SOCOM has hosted more than 75 ambassador designees. 
Feed back on the program has been positive and the future ambassadors 
have indicated that the experience is worthwhile and will help them in 
the future.
    Question. Please describe the value of these special operations 
personnel to their respective Geographic Combatant Commands and the 
country teams they are supporting.
    Answer. SOLOs are SOCOM sourced, SOF qualified officers, and placed 
under Chief of Mission authority as part of the Country Team, via the 
National Security Decision Directive-38. There are currently 8 serving 
SOLOs in various countries with 2 more going out summer 2011, for a 
total of 10 SOLOs working with the U.S. Embassy country teams. These 
countries were selected based on their proven or potential ability and 
desire to work SOCOM as partners across the spectrum of special 
operations missions and goals. The SOLOs serve as the SOCOM Commander's 
representative to the country team and host nation SOFs. A prime 
objective of the SOLO program is improving coordination between the 
U.S. country team, the TSOC and the host nation. Although the program 
is still relatively new, all indications are positive. The countries 
that have SOLO's enjoy a more efficient, direct coordination, and 
information sharing on SOF specific issues.

                MILITARY INFORMATION SUPPORT OPERATIONS

    Question. DOD recently announced that it was discontinuing use of 
the term ``psychological operations (PSYOP)'' in favor of the term 
``military information support operations (MISO).''
    Do you support this change? Why or why not?
    Answer. Yes. Today, for some, the term PSYOP unfortunately conjures 
up images of propaganda, lies or deception--and these inaccurate 
perceptions limit the willingness to employ MISO personnel in some 
areas where they could be extremely effective.
    To date, there is some evidence that the name change has allowed 
for some increases in acceptance, cooperation and coordination 
throughout the U.S. Government and our partner nations.
    Question. What operational and doctrinal impacts do you believe 
such a change will have?
    Answer. Replacing the term Psychological Operations with MISO 
throughout military doctrine, manuals, and other documents is one of 
semantics. There were no directed changes in doctrine or operational 
employment of the force.
    Question. Do you believe the Armed Forces have sufficient personnel 
and other assets to conduct the range of military information support 
missions being asked of them?
    Answer. MISO forces and assets, like the rest of the military, are 
stretched thin with the ongoing operational requirement to the deployed 
combat forces. This low density force is one of the most deployed in 
the military which demonstrates the need to increase forces and assets. 
Under Admiral Olson, SOCOM conducted several reviews to address these 
issues. One of the first responses to increasing the MISO capability is 
the reorganization of SOCOM MISO forces. This reorganization will 
reduce redundancy in commands and allow for the repurposing of numerous 
positions from staff to operational capability.
    Question. Al Qaeda and affiliated violent extremist groups work 
hard to appeal to both local and foreign populations. The composition 
and size of these groups in comparison to the U.S. Government permits 
them to make policy decisions quickly.
    Do you believe DOD is organized to respond quickly and effectively 
to the messaging and influence efforts of al Qaeda and other affiliated 
terrorist groups?
    Answer. DOD is well positioned and organized from the strategic 
level to the tactical to quickly respond to al Qaeda and its affiliates 
when a quick response is what is required. But unlike kinetic warfare, 
effectiveness in the war of ideas does not necessarily lie in outpacing 
the tempo of our enemies. A steady drumbeat which clearly articulates 
U.S. policy over time, anchored in the bedrock truth, best serves our 
national interests. DOD takes its lead from the Commander in Chief and 
the Department of State, in re-enforcing the message from our Nation. 
In doing so, we are extremely effective in face-to-face engagements, 
through a broad array of engagements with our partner and host nations, 
and allies, on a daily basis. As a representative example, we reinforce 
our ability to engage with printed products, such as the Geographic 
Combatant Command's Regional Magazines and the Geographic Combatant 
Command's foreign engagement websites. These mediums allow us a broad 
range of options.
    In addressing al Qaeda, we collectively identify and exploit their 
miscues and errors, and forcing them into a reactive role to gain the 
initiative. The DOD in that way, determines the appropriate level of 
response and quickly coordinates that response with other agencies, and 
the State Department. Our military commanders have a solid 
understanding of the impact messaging can have in the strategic 
environment and exercise authorities with coordinated guidance allowing 
them broad flexibility to respond in the most appropriate manner.
    While shocking video and extremist propaganda constantly reminds us 
that al Qaeda and their affiliated terrorist groups exercise 
streamlined and individual messaging--with unencumbered release 
processes and no mandate for truth--it would appear to give them the 
ability to address emerging issues, as they see them, at a time and 
place of their choosing. But recent events suggest that the mainstream 
is rejecting their propaganda.
    Question. What do you believe is the appropriate role for Military 
Information Support Teams (MIST) in these activities?
    Answer. The MIST is the MISO equivalent to the Special Forces 
operational detachment. The element that executes MISO at the 
operational and tactical level--but should not be equated to tactical 
loudspeaker elements that operates in support of combat maneuver forces
    The MISTs develop messages to counter hostile information and 
propaganda, that are culturally relevant and acceptable to the host 
national population. Such messaging is closely coordinated with the 
embassy due to the Team's relationship in support of the embassy staff. 
The MISTs also can maintain awareness of the information environment by 
identifying current trends in local and regional media reporting, 
identifying hostile messaging, and measuring local populace reaction.

                        CIVIL AFFAIRS OPERATIONS

    Question. Civil affairs (CA) activities carried out by SOF in 
partnership with host nation personnel play an important role in 
developing infrastructure, supporting good governance and civil 
societies, and providing humanitarian assistance, including medical and 
veterinary services to needy populations.
    In your view, does SOCOM have sufficient personnel and resources to 
conduct the range of civil affairs missions required for today's 
operations?
    Answer. Civil Affairs activities are most effective when 
coordinated with other U.S. Government efforts, most notably those 
carried out by the U.S. Agency for International Development.
    Question. If confirmed, how would you ensure Civil Affairs 
activities by special operations personnel are integrated into larger 
U.S. Government efforts?
    Answer. MISOs can have an amplifying effect on Civil Affairs 
activities by actively promoting the efforts of the U.S. military and 
host nation and by communicating truthful messages to counter the 
spread of violent extremist ideology among vulnerable populations.
    Question. If confirmed, how would you ensure Civil Affairs and 
MISOs are adequately coordinated to achieve a maximum impact?
    Answer. I'll start by saying this is a mutually supporting effort 
where, as you've stated, MISO can and does support, reinforce, and 
amplify CA efforts on the ground. On the other hand, CA can and does 
amplify MISO efforts to affect behavior through their on the ground 
activities. In a nutshell, it's about ``words and deeds''--you can't 
have one without the other, and depending upon the situation one will 
support or be supported by the other.
    Today, we affect this coordination and synchronization through our 
strategic plans and guidance, where both MISO and CA staff members 
participate with our strategic planners to ensure, depending upon the 
situation, activities of both are nested and mutually supporting. This 
is also true at the TSOCs and GCCs.
    On the ground, this coordination and synchronization is affected 
through the deployment and organization of cross-functional SOF teams 
that often include elements of MISO and CA who work together, plan 
together, and often operate together, in coordination with the U.S. 
Embassy and Country team and JSOTF and/or TSOC commander's objectives.
    While there's room for improvement, we believe we're on the right 
track. We continue to reinforce our efforts for CA and MISO to work 
more closely and better achieve our population-centric and indirect 
approach. Starting with a synchronized campaign in coordination with, 
and often in support of, our U.S. Government civilian interagency 
partners, CA and MISO have and will continue to improve operations to 
counter violent extremism as part of U.S. Government strategic 
objectives globally.

                          TRAINING CAPABILITY

    Question. What capabilities do you consider most important for 
effective training of special operations personnel?
    Answer. Professional military education remains an essential 
element to the development, sustainment, and advancement of SOF. 
Additionally, language skills and cultural knowledge continue to be key 
to establishing effective relations with the foreign forces, 
organizations, and individuals with which SOF will interact.
    Maintaining core Special Operations skills are also critical. They 
provide the base for what makes SOF special.
    Question. What improvements are necessary, in your view, to enhance 
training for special operations personnel?
    Answer. SOF competition for Service installation's Ground Tactical 
Ranges and Training Areas with the General Purpose Forces is one of our 
greatest challenges. Given SOF's OPTEMPO and unforecasted mission 
requirements SOF needs priority at Service installations over GPFs 
allowing immediate and unfettered access to ranges and training areas. 
In the current environment, training time is short and precious.
    From a Presentation of Force Perspective, Pre-mission and Pre-
deployment training with relevant Service-provided capabilities (e.g. 
mobility, fires, engineers, et cetera) is also critical to ensure that 
joint SOF packages are effective and fully-enabled. The continued 
emphasis on language and cultural awareness training is important. SOF 
have seen remarkable improvements to three key areas since September 
11--shooting, moving, and communicating. Now the command must 
concentrate on ``understanding.''
    Question. What are the most significant challenges in achieving 
effective training of special operations personnel?
    Answer. SOCOM must move from a primarily threat-focused approach to 
a populace-centric approach. To achieve U.S. strategic objectives, the 
instruments of national power, including the military, and more 
specifically SOF, must posture for and then execute an approach based 
on populace-centric engagement. In this approach, the United States out 
competes rivals in the open market of relevant populations as opposed 
to countering rivals in a more conventional manner based on threat-
centric engagement. While emphasizing the need for the indirect 
approach, we must not weaken our ability to execute direct action when 
necessary. To be successful, we must optimize our role with the 
defense-diplomacy-development construct and design our training 
programs to maximize our combat capability and make our staffs more 
effective.
    Another challenge is ensuring there is enough time to train in the 
deployment cycle to maintain proficiency in our core SOF capabilities. 
Since most SOF missions require non-SOF support, time must be added to 
work closely with the Service Providers prior to deployment.
    Question. What, if any, training benefits accrue to SOF from 
training foreign military personnel?
    Answer. SOF providing training in regional synchronization, 
intelligence sharing, planning and coordination for counterterrorism 
related operations has provided huge benefits. SOF also participates in 
Joint Combined Exchange Training (JCET) exercises throughout the world. 
These exchanges enhance SOF skills and fulfill training requirements. 
They also build person-to-person and unit-to-unit relationships.
    The bottom line is we must continue to develop relationships with 
our foreign counterparts for persistent engagement, cultural awareness 
and to maintain SOF instructor and language skills.
    Question. To what extent, in your view, is it appropriate for the 
United States to rely upon contractors for training foreign military 
personnel? What do you see as the primary risks and advantages in such 
contractor training?
    Answer. Training of foreign forces, as a general rule, must be 
conducted as a part of the Department of State title 22 funded Security 
Assistance or Security Cooperation programs. SOF support to these 
programs usually does not include the use of contracted personnel. The 
use of contractors in many cases may make sense from a cost 
perspective, as well as relieving military assets from these tasks. The 
risk to SOF in using contracted personnel is the possible disclosure of 
Tactics, Techniques, and Procedures (TTP) which SOF has developed, and 
has resulted in our successes on the battlefield. SOF reviews contracts 
for training to foreign forces to ensure TTPs are protected from 
disclosure. The problem is trying to monitor contracted training that 
is being done by other countries for foreign forces. Frequently, former 
U.S. military personnel accept employment with foreign companies to 
conduct SOF training. It is very difficult to monitor the disclosure in 
this case.
    Contractors are not a SOF substitute. They should only be used in a 
support role such as logistics and administration. The risk is they are 
not military and therefore cannot represent the U.S. Government. The 
advantages are they free up SOF from routine logistical and admin 
support functions and allow them to concentrate on operational mission 
accomplishments.
  capabilities of special operations forces and general purpose forces
    Question. The 2010 QDR called for increased counter insurgency, 
counterterrorism, and security force assistance capabilities within the 
general purpose forces.
    What is your assessment of the QDR with regard to the mix of 
responsibilities assigned to general purpose and SOF, particularly with 
respect to security force assistance and building partner military 
capabilities?
    Answer. SOF have routinely been the force of choice for Security 
Force Assistance (SFA) activities. However, SOF cannot indefinitely 
sustain current levels of overseas presence. The resulting pressure on 
the force and our families is too great and the pressure is creating a 
dramatic effect on our readiness. All capabilities, including SOF, 
require foundational activities to make them sustainable. Any 
comprehensive plan to develop a capability must address these 
activities base. The General Purpose Force (GPF) maintains the subject 
matter expertise to deliver most of these foundational activities. The 
GPF's primary challenge is the lack of core competence in advising 
specific skills. The GPF's challenge in the future will be to 
effectively institutionalize what they have learned, developing the 
right capabilities, and establishing effective and responsive policies, 
processes, and procedures to meet the national security goals with 
respect to building foundational activities necessary for conflict 
prevention. Once it is institutionalized across the Department, we feel 
the development of foundational activities can be accomplished through 
the appropriate employment of GPF, SOF or SOF/GPF mix.
    GPF are best suited for delivering GPF capabilities to foreign 
military forces in environments where overt U.S. presence is acceptable 
to the host-country government and where large-scale U.S. presence is 
considered necessary and acceptable by the host-country government or 
in areas where a limited overt presence is acceptable to the host 
nation government. SOF is more appropriate for politically sensitive 
environments where an overt U.S. presence is unacceptable to a host 
country government. These are not hard and fast rules but should serve 
as general guidelines for the Department.
    Question. Do you believe that our general purpose forces need to 
become more like SOF in mission areas that are critical to countering 
violent extremists?
    Answer. A key element to countering violent extremists is removing 
the factors that inspire hatred and discontent, both in their 
organizations and more importantly, among the populations they recruit. 
In order to do this effectively, any force, whether SOF or GPF, needs 
to have an understanding of the culture, and be able to build 
relationships with the population that promote mutual respect. A key 
element in the training of SOF personnel is the development of regional 
and cultural orientation, language capability, and an ability to 
interact effectively in other cultures. In Afghanistan for example, 
there are many GPF units currently conducting activities that are 
traditionally Special Operations and that are important for building 
Afghan capacity to counter VEOs and raising their standard of living to 
a point where most incentives to join VEOs no longer exist. NATO 
Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (NTM-A/CSTC-A) has GPF conducting Foreign Internal Defense 
by training Afghan National Army and Police forces. Provincial 
Reconstruction Teams (PRTs) are conducting capacity building, medical, 
and engineering support missions that fall under the heading of Civil 
Affairs, as well as Information Operations to help the Afghan 
Government communicate more effectively with its own population. PRTs 
and other GPF units also conduct Humanitarian Assistance activities.
    GPF needs to be more SOF like as it pertains to the Knowledge, 
Skills and Attributes (KSA) that make SOF effective, such as language, 
culture, regional expertise, cross-cultural ability, diplomacy, and 
adaptability. These KSAs will enable the GPF to effectively execute the 
missions and activities that support SOF, in coordination with SOF or 
independently to create an environment unfavorable to violent extremist 
organizations (i.e.: enhanced capabilities to conduct or support 
missions in foreign internal defense, counterinsurgency, stability 
operations, security force assistance, unconventional warfare, and 
information operations as outlined in the 2010 QDR). I would also 
mention that the Services have made great strides in this direction in 
the last 2 or 3 years.
    Question. Are there certain mission areas that should be reserved 
for SOF only?
    Answer. Missions involving the Title 10 SOF Core Activities of 
Direct Action, Special Reconnaissance, and Unconventional Warfare are 
highly specialized and from a military standpoint SOF should have 
primacy due to the extensive specialized mental and physical training 
required and the high degree of risk that the personnel conducting 
these missions accept.
    However, other agencies in the U.S. Government also specialize in 
some of these missions, particularly Counterterrorism and Counter 
Proliferation of Weapons of Mass Destruction. SOF needs to partner 
closely with them in the conduct of these operations. Additionally, SOF 
is best suited for politically sensitive environments, where an overt 
U.S. presence is unacceptable to the host country government, and to 
denied environments.

                SPECIAL OPERATIONS ENABLING CAPABILITIES

    Question. The Commander of SOCOM has described the ``non-
availability'' of force enablers as SOCOM's ``most vexing issue in the 
operational environment.'' The 2010 QDR sought to balance previously 
mandated growth in SOF with additional enabling capabilities.
    What do you believe are the greatest shortages in enabling 
capabilities facing SOF?
    Answer. The greatest shortage is in those enabling capabilities not 
organic to SOCOM's force structure.
    SOCOM's organic enabling capabilities are those that provide our 
forces the ability to self-sustain for short durations while 
maintaining the agility that allows us to deploy forces quickly in 
support of the combatant commanders. Support of SOF, by doctrine, and 
except under special circumstances, becomes the responsibility of each 
Service's theater logistic command and control structure; Services and/
or executive agents should be prepared to support special operations 
not later than 15 days after SOF are employed.
    Shortages of enabling capabilities for SOF are often similar to the 
shortage of enablers that plague the rest of the deployed force. SOF 
struggle to obtain enough intelligence, EOD, ISR, communications 
personnel, medical, and security personnel support.
    Question. Do you believe additional enabling capabilities, beyond 
those mandated by the QDR, are required to support SOF?
    Answer. The QDR mandated an increase in the number of organic 
combat and combat service support assets available to both the Army and 
Navy special operations units. These capabilities include logisticians, 
communications assets, forensic analysts, information support 
specialists, and intelligence experts. We are slowly realizing this 
programmed growth, and it will make a difference in how our units are 
supported. The QDR only addresses growth within SOCOM. SOCOM will 
always rely on the Services for some level of support as addressed in 
the previous question. Our higher `tooth to tail' ratio when compared 
to conventional forces will make us dependent on the services for most 
operations in excess of 15 days.
    Question. Do you believe additional enabling capabilities should be 
grown within SOCOM or provided in support of SOF by the Services?
    Answer. Both, but the preponderance of those support capabilities 
should remain in the conventional force and be provided to SOF through 
the habitual association of Service combat support and combat service 
support capabilities with the SOF units they primarily support.
    Currently the responsibility of the conventional force to provide 
sustainment support to SOF is not clearly defined or specified. This 
limits SOF's ability to sustain operations.
    SOCOM is currently working with its components, the Services and 
the JS to develop the Special Operation Force Generation process to 
improve how it requests these critical capabilities. We will work to 
better define our requirements and make them farther in advance, to 
allow the Services to plan for the employment of habitually associated 
units in support of SOF. A reduction of our emergent requests and an 
increase in habitually associated Service provided capabilities will go 
a long way to resolve this problem.

                        RENDER SAFE PROFICIENCY

    Question. The proliferation of weapons of mass destruction is a 
growing and especially concerning threat to our Nation. Select special 
operations units are assigned the task of interdicting and rendering-
safe weapons of mass destruction should they ever fall into the wrong 
hands.
    If confirmed, how would you ensure render-safe capabilities are 
adequately maintained by special operations units who may currently be 
heavily engaged in offensive kill/capture missions against high value 
targets in Afghanistan and elsewhere?
    Answer. Currently, our capabilities are adequately maintained by 
special operations units. I will continue to use the current training 
and exercise programs in place. Special operations units participate in 
the Joint Operational Readiness and Training (JORTS) Cycle that 
incorporates world-wide deployments, individual training, collective 
training, and joint exercises (and evaluations) year round.
    Question. Do you believe additional render-safe capabilities are 
needed within SOCOM?
    Answer. Yes, but allow me to qualify that answer. As I stated 
before--our capabilities, training, and exercises are on track. We are 
abreast of the latest's threats. However we cannot rest. We must stay 
in front of the evolving threat through our research and development 
(R&D) programs. I am grateful for what we have, but as with any 
program, we are limited by funding. Increased funding for our R&D 
programs could potentially enhance our current capabilities within 
SOCOM.

                      SUPPORTED COMBATANT COMMAND

    Question. Under certain circumstances and subject to direction by 
the President or Secretary of Defense, SOCOM may operate as a supported 
combatant command.
    In your view, under what circumstances should SOCOM conduct 
operations as a supported combatant command?
    In your view, what resource, organization, and force structure 
changes, if any, are required in order for SOCOM to more effectively 
conduct both supporting and supported combatant command 
responsibilities?
    Answer. The plan of using SOCOM as a supported commander for CT ops 
was developed soon after September 11. Part of the reasoning was based 
on the assumption that SOCOM forces would most likely be prominent 
players in any terrorist-related incident, and also the fact that SOCOM 
is not limited to any specific area of ops. Additional rational was 
that the SOCOM Headquarters staff would be best suited to quickly plan 
any effort that spanned several AORs and/or involved precision timing 
based on a potential need for near-simultaneous execution against 
multiple targets. However, during the last 10 years, several real-world 
scenarios and numerous CT-focused global exercises have not supported 
the earlier belief that the Commander, SOCOM, is the best choice for 
being the supported commander for CT-related ops. In every case, both 
real-world and exercise, the final decision was to designate the GCC as 
the supported commanders. Their staffs, each of which includes a TSOC 
of more than 100 personnel, proved they were able to competently 
coordinate cross-GCC efforts and there was no need for an added layer 
of command and control between them and the Secretary of Defense. Also, 
the Joint Staff has concluded they are capable of executing the 
planning for any CT-related mission and may only require some SOF 
augmentation rather than a SOCOM-led effort. I cannot think of any 
other situation where the Commander, SOCOM, would be the best choice 
for acting as the supported commander.

                       INTERAGENCY COLLABORATION

    Question. The collaboration between SOF, general purpose forces, 
and other U.S. Government departments and agencies has played a 
significant role in the success of counterinsurgency and 
counterterrorism operations in recent years. However, much of this 
collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. We have learned a great deal over the last decade about the 
strength of collaboration. The organizational innovation of forming 
small task forces of subject matter experts from across the military, 
government, and partner nations allowed SOF in Iraq, Afghanistan and 
elsewhere to synchronize efforts with an efficient agility. These task 
forces all follow three simple principles: the practice of flattened, 
agile communications, extensive senior leader involvement across the 
U.S. Government and allies, and the leveraging of information dominance 
provided by these subject matter experts and their systems. These 
principles are our most important lessons learned.
    Question. How do you believe these efforts can be improved?
    Answer. As we approach future phases of operations in New Dawn and 
OEF, these forward interagency task forces will likely relocate and 
refocus on other regions and priorities. We must preserve the ability 
for the greater interagency network to support these task forces by 
asking them to loan their best and brightest to the effort. We must 
remember that any complex task is best approached by flattening 
hierarchies. It gets everybody feeling like they're in the inner 
circle, so that they develop a sense of ownership.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. We're on the right track with doctrinal publications such 
as Joint Pub 3-08, ``Interagency, Intergovernmental Organization, and 
Nongovernmental Organization Coordination During Joint Operations.'' 
Capturing the best practices of these horizontal interagency teams in 
future editions is critical.

                         TREATMENT OF DETAINEES

    Question. Section 1403 of the NDAA for Fiscal Year 2006 provides 
that no individual in the custody or under the physical control of the 
U.S. Government, regardless of nationality or physical location shall 
be subject to cruel, inhuman, or degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. Yes. It is essential that we follow both international and 
domestic laws regarding treatment of detainees. We do this not only to 
maintain international respect but also to set the example and to live 
our values. The way we behave shows how we view individual's lives. It 
is who we are.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes, I fully support those standards.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    Do you believe it is consistent with effective counterinsurgency 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. If confirmed, how would you ensure that SOF comply with 
the standards in the Army Field Manual, the DOD Directive, and 
applicable requirements of U.S. and international law regarding 
detention and interrogation operations?
    Answer. SOCOM ensures that these regulations are followed through 
unit and individual training, and incorporated into all operational 
plans, pursuant to law and DOD instructions. I would emphasize their 
importance, direct continued compliance, and hold those who fail to 
follow the standards accountable for their actions. Prompt 
investigation into allegations of abuse and swift action are keys to 
ensuring strict compliance.
    Question. What steps, if any, would you take to ensure that those 
foreign forces trained by our SOF understand the necessity of complying 
with the Geneva Conventions when detaining and interrogating 
individuals?
    Answer. When conducting the training, I would ensure that our SOF 
personnel continue to explain in clear terms why it is important to 
follow international laws, treaties, and conventions, and the 
consequences of failure to abide by them. Additionally, I will make 
sure that we continue to use these training opportunities not just to 
show them what we do and how we do it, but to also explain why it 
works. The best thing we can do is set the example and set down our 
expectations that they should emulate what we do not because we tell 
them to but because it is the right thing to do. Finally, we make it 
known that further military assistance and training is predicated on 
their adherence to the law of war and human rights laws, as required by 
the Leahy Amendment.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander of SOCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                            SOLAR MICROGRIDS

    1. Senator Levin. Vice Admiral McRaven, for several years, elements 
of Special Operations Command (SOCOM) have supported the development of 
solar power generators for Special Operations teams deployed in remote 
areas of Afghanistan, and for the use by the Afghan people through the 
Village Stability Operations program. The committee understands that 
two units have been built and forward-deployed for trial and 
evaluation. A third unit, reflecting input from the deployment of the 
first two, is now being tested at Aberdeen Proving Grounds before its 
scheduled deployment to Afghanistan.
    For our Special Operations Forces (SOF), these solar generators 
could dramatically reduce the consumption of diesel fuel and other 
consumables such as batteries. As we all know, getting supplies to 
forces in dangerous remote areas is hard and risky and reducing the 
number of convoys saves lives. What is your assessment of the utility 
and maturity of the solar microgrid system that SOCOM has developed?
    Admiral McRaven. SOCOM deployed the first two of three Mobile Smart 
Power Initiative Systems to Afghanistan in support of Operation 
Enduring Freedom in late December 2010 as part of a pilot program to 
evaluate and assess the use of alternative power generation 
technologies at remote Forward Operating Base locations.
    The overall objective was to increase energy efficiency and reduce 
reliance on fossil fuels by our SOF elements deployed at remote Village 
Stability Platform locations. Operating costs, transport demands, 
resupply needs, and exposure to improvised explosive devices 
necessitate the need for alternative power capabilities at remote 
locations throughout Afghanistan. Thus far, the systems have 
demonstrated utility at both locations for the stated goals of fuel 
savings but equally important for village stability operations. At both 
locations we are supplying power to our SOFs but also to the Afghans 
village centers and medical clinics. System maturity will increase as 
we move forward applying lessons learned from the first two systems 
into a larger third system that will be deployed in August 2011. This 
third system will offer increased power generation capability and will 
undergo a similar limited user assessment. We believe solar power along 
with other fuel saving initiatives have a solid place on the 
battlefield.

    2. Senator Levin. Vice Admiral McRaven, could fielding of solar 
microgrid systems for the Village Stability Operations program be 
accomplished using funding from the Commander's Emergency Response 
Program (CERP) and/or Afghanistan Infrastructure Fund?
    Admiral McRaven. The fielding of Solar Microgrid systems to provide 
electricity or power generation can be funded from the CERP or the 
Afghanistan Infrastructure Fund.

    3. Senator Levin. Vice Admiral McRaven, is SOCOM considering 
procurement of solar microgrid systems for the use of SOF?
    Admiral McRaven. SOCOM investment will be limited to the three 
initial systems. We will provide our lessons learned to the Service 
that could best move this type of effort forward into a service common 
system.

    4. Senator Levin. Vice Admiral McRaven, should SOCOM procure these 
systems or is the command looking to one of the Services to sponsor and 
fund this acquisition?
    Admiral McRaven. SOCOM investment will be limited to the three 
initial systems. We will provide our lessons learned to the Service 
that could best move this type of effort forward into a service common 
system.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan

                                AL QAEDA

    5. Senator Hagan. Vice Admiral McRaven, Secretary-designate Panetta 
has expressed concern about the shifting of al Qaeda to ``nodes'' 
outside of Pakistan, Iraq, and Afghanistan--most notably in Yemen, 
Somalia, and North Africa--and the need to keep up the pressure on 
these nodes. How would you characterize the relative threat these nodes 
pose to the United States and our allies?
    Admiral McRaven. Al Qaeda (AQ), its associated movements (AQAM), 
and key affiliates (to include AQ in the Arabian Peninsula, al-Shabaab, 
AQ in Iraq, and AQ in the Islamic Maghreb) remain the pre-eminent 
threat to the U.S. Homeland and interests abroad, to include our 
allies.
    While AQ has been unable to perpetuate a ``Spectacular'' attack 
against the U.S. Homeland since September 11, the United Kingdom and 
Spain have suffered AQ-inspired attacks. The failed ``Christmas Day 
Bomber'' attempt to bring down an airliner over Detroit, MI, claimed by 
AQ in the Arabian Peninsula, is proof that AQ Senior Leader guidance to 
attack western interests and the U.S. Homeland is being adhered to by 
AQ affiliates around the globe. AQ utilizes modern communications, 
financial and logistic networks that transcend national borders and 
boundaries throughout the globe.
    U.S. and partner nation Counterterrorism (CT) efforts, supported by 
SOCOM Forces and the U.S. Interagency (IA), have frustrated AQ's 
operations in the U.S. Central Command Area of Responsibility and 
across the globe; yet AQ's motivation to attack the homeland is 
undiminished and their ability to reconstitute their capabilities is 
remarkable.
    The shift of AQ operational nodes to Yemen, Somalia, and North 
Africa poses challenges for the U.S. in that the United States may have 
to conduct Security Cooperation and Security Force Assistance 
activities to assist these country's Armed Forces improve their 
military and security capacity and capability to meet the AQ threat 
within their borders.

    6. Senator Hagan. Vice Admiral McRaven, do you believe we are 
applying sufficient resources to address these threats?
    Admiral McRaven. We are applying significant resources toward 
neutralizing al Qaeda in the Arabian Peninsula, Somalia, and East 
Africa. Our shortfalls continue to be manpower and Intelligence, 
Surveillance, and Reconnaissance (ISR) in support of kinetic operations 
in these areas. Unmanned ISR is a critical enabler for SOF in these 
direct action missions. Both the U.S. Central and Africa Commands have 
done an exceptional job in apportioning the available ISR but, we 
continue to experience shortages during these missions. Manpower is one 
of our greatest challenges we have and will continue to face in the 
future. The demand for SOF worldwide has quadrupled since September 11 
and we do not expect this to decrease. SOF can not be massed produced. 
Our planned growth for manpower within SOCOM is 3-5 percent per year. 
It is essential that we ensure our forces have the resources that they 
need to survive and succeed in the complex, ambiguous and often violent 
environments in which we ask them to operate in.

                  GOLDWATER-NICHOLS ACT MODIFICATIONS

    7. Senator Hagan. Vice Admiral McRaven, in response to the 
committee's advance policy questions, you indicated that you believe 
modifications to the Goldwater-Nichols Act are required to provide 
SOCOM with ``greater personnel management authority to shape mid- and 
senior-grade SOF operators to meet SOCOM's defined requirements.'' In 
what ways do the Goldwater-Nichols Act and current DOD policies provide 
insufficient authority to SOCOM to address these issues?
    Admiral McRaven. I believe the Goldwater-Nichols Act is one of the 
most significant pieces of legislation passed by Congress regarding DOD 
operations and organization. However, it has been 25 years since the 
enactment of Goldwater-Nichols and with the passage of time and an ever 
changing landscape of threats, I believe it is prudent for DOD to 
continuously review and innovatively improve our personnel management 
practices. We must revisit how we manage our personnel in order to 
guarantee that our system produces the type of leaders needed to 
succeed in the future operational environment.

    8. Senator Hagan. Vice Admiral McRaven, what specific modifications 
would you recommend?
    Admiral McRaven. I am not prepared now to recommend any 
modifications, but look forward to reviewing this milestone legislation 
and assessing whether any modifications should be considered to address 
the challenges faced in today's security environment.

                  TRANSNATIONAL CRIMINAL ORGANIZATIONS

    9. Senator Hagan. Vice Admiral McRaven, earlier this year, the 
Commanders of U.S. Northern Command (NORTHCOM) and U.S. Southern 
Command (SOUTHCOM) described the debilitating impact of transnational 
criminal organizations in Central America and Mexico. Appropriately, 
both commanders indicated the lead U.S. Government agencies for 
supporting our foreign partners in their efforts to counter the 
influence of transnational criminal organizations should be U.S. law 
enforcement and DOS. However, they both indicated that DOD can play an 
important support and enabling role. Would you support SOCOM and SOF 
playing a more significant role in support of other U.S. Government 
departments and agencies in this region?
    Admiral McRaven. Clearly the transnational criminal organizations 
are a threat to our national security that must be addressed through 
multi-national, multi-agency collaborative efforts. Per direction from 
the Secretary of Defense, SOCOM forces under the operational control of 
the NORTHCOM and SOUTHCOM commanders currently execute counter-
narcoterrorism training of selected partner nations' security forces in 
support of those combatant commanders' theater strategies. While SOF 
possess additional unique capabilities that could be leveraged against 
the problem, I would defer to the Secretary of Defense and the 
combatant commanders to determine what, if any expanded role SOF would 
have within the context of the whole of U.S. Government and Department 
of Defense strategy. Should an expanded role be requested and approved, 
we would support to the extent possible.

    10. Senator Hagan. Vice Admiral McRaven, in your view, what--if 
any--support capabilities can SOCOM bring to this effort that the 
geographic combatant commands cannot?
    Admiral McRaven. We can bring to this effort the following: an in-
depth understanding from a global perspective on Transnational Criminal 
Organizations networks based on our experience in counterterrorism; a 
well established relationship of working with law enforcement in 
forward deployed locations, in the National Capitol Region, and through 
our Interagency Task Force in Tampa; and finally SOCOM can bring a 
well-honed process to identify lines of effort that should prove 
effective at disrupting Transnational Criminal Organizations networks.
    In conducting our global mission of synchronizing DOD plans and 
planning for counterterrorism, we recognize the increasing threat posed 
by this crime-terror-insurgency nexus. SOCOM is uniquely positioned to 
contribute to the U.S. Government effort against Transnational Criminal 
Organizations through information sharing with those agencies 
possessing the authorities to take action. SOCOM has close working 
relationships with all of the Geographic Combatant Commands (GCCs) and 
their subordinate TSOCs on countering these threats.

                         COUNTER-THREAT FINANCE

    11. Senator Hagan. Vice Admiral McRaven, in response to the 
committee's advance policy questions, you indicate you are a strong 
advocate for counter-threat finance operations. You also indicated that 
you believe SOCOM might want to explore additional activities in this 
important area. Can you explain what sort of additional and expanded 
activities you have in mind?
    Admiral McRaven. We need to expand threat finance operations into 
the Theater Special Operations Commands (TSOCs) and develop our 
capabilities in the collection and processing of threat finance 
information. Processing means getting the information into the hands of 
our interagency partners or DOD elements that can operationalize that 
information. Since threat finance is still a relatively new and 
sometimes not well-understood addition to DOD operations, expanding 
threat finance operations/capabilities at the TSOCs may also include 
assigning experienced threat finance personnel from SOCOM to the 
combatant commands as needed or requested. Additionally, we need to 
expand our interaction with our interagency partners. This will enable 
a broader level of support to Law Enforcement, Treasury and other 
partners who assist in disrupting the global illicit financial 
networks. This cooperative work with law enforcement is a logical 
extension of the effort of SOCOM and the combatant commands. 
Interagency threat finance operations, supported by DOD worldwide, is a 
unique combination of authorities to mitigate, degrade and defeat the 
financial networks that support organizations threatening the United 
States.

    12. Senator Hagan. Vice Admiral McRaven, transnational criminal 
organizations in Central America and Mexico are having a debilitating 
impact on the ability of our foreign partners to govern their nations 
and provide opportunities for their people. Do you think expanded 
counter-threat finance activities in this region would be beneficial?
    Admiral McRaven. Yes, provided they are led by our interagency 
partners, supported by DOD, and focused toward disrupting the illicit 
financial flows of the organizations versus High Value Individual (HVI) 
hunting. We need to emphasize disrupting the movement of illicit 
capital into, out of, and through such countries as Mexico, Guatemala, 
Belize, Panama, Curacao, and Barbados. In addition, al Qaeda and its 
allies have expressed an interest in leveraging transnational criminal 
networks operating through Central America and Mexico into the United 
States. Disrupting these financial flows can help cripple the 
transnational criminal organizations, their associated drug trafficking 
organizations (DTOs), and the financial intermediaries who enable this 
activity. It can also reduce the possibility that terrorist groups can 
leverage transnational criminal organizations in Central America and 
Mexico to conduct attacks in the U.S. Homeland.

                         NATO SOF HEADQUARTERS

    13. Senator Hagan. Vice Admiral McRaven, during your time as the 
Commander of the Special Operations component of U.S. European Command, 
you oversaw the creation of what is now known as the North Atlantic 
Treaty Organization SOFs Headquarters (NATO SOF HQ). In your response 
to the committee's advance policy questions, you indicated you are 
``particularly interested in developing an enduring relationship'' with 
the NATO SOF HQ. What do you see as the value of the NATO SOF HQ to 
International Security Assistance Force (ISAF) operations in 
Afghanistan and to broader multilateral military engagements around the 
world?
    Admiral McRaven. I am indeed very familiar with the NSHQ as I was 
appointed by the Supreme Allied Commander-Europe as the first Director 
of the NSHQ's predecessor organization, the NATO SOF Coordination 
Center (NSCC) in December 2006 while concurrently serving at the 
Commander of the Theater Special Operations Command.
    The NSHQ value to the ISAF SOF effort has been nothing short of 
immense. I say that with first hand knowledge of its impact cognizant 
of where we started, but also from my more recent vantage point of an 
operational Commander in Afghanistan. In February 2007, just a few 
months after the establishment of the NSCC, we led the first NATO 
Senior SOF leader assessments to Afghanistan where we took many of the 
NATO SOF Commanders to Afghanistan to ascertain a first hand 
perspective. This event began a series of NSCC related activities in 
support of ISAF SOF, but most importantly served as a catalyst for 
invigorating NATO SOF force generation, which is the NATO process of 
gaining commitment of NATO SOF forces to the ISAF SOF team.
    From 2007 to now, the NATO Allied and Partner SOF footprint in 
Afghanistan has grown 500 percent to some 2,100 personnel, primarily 
due to the NSCC/NSHQ support to the NATO Force Generation process 
managed by the Deputy SACEUR. Additionally, the NSCC/NSHQ has been an 
essential partner to the ISAF SOF Command over the last several years 
providing a degree of coherence to the effort that did not exist 
previously, in fact the current ISAF SOF Commander is the former NSHQ 
Deputy Commander. Other NSCC/NSHQ support to ISAF dating back to 2007 
has included the development of a Strategic Concept for ISAF SOF 
Capabilities, a second ISAF SOF Assessment in December 2008 at the 
request of SACEUR, the drafting of a Strategic ISAF SOF Vision and 
supporting plan, an ISAF SOF Air Assessment, advice and assistance to 
the broader Afghanistan SOF command and control arrangements, and 
creation of ISAF SOF Medical information briefings and medical 
directives.
    One of the most significant contributions was the creation of the 
SOF Fusion Cell, comprised of contributions from the ISAF SOF troop 
contributing nations and the NSHQ. It is focused on garnering 
information from in excess of forty different multinational sources and 
fusing that information to support ISAF SOF Special Operations Task 
Groups. This is really an unheralded success story that has been an 
unprecedented success for information sharing among Allied SOF that is 
difficult to appreciate. It has cut new ground for SOF collaboration 
that we aim to fully exploit for the future. As mentioned, today, more 
than 2,100 NATO Allied and Partner SOF are training and advising 
partnered elite Afghan National Security Forces (ANSF) paramilitary 
units as part of a broader force multiplying/economy of force effort. 
As mentioned in my testimony, as forces draw down in Afghanistan, one 
can assume that NATO Allied and Partner SOF will figure prominently in 
continuing to facilitate the transition to Afghan lead.
    In terms of broader global military engagement, the experience of 
the NATO Special Operations Headquarters (NSHQ) is important to the 
U.S. and to SOCOM because we have seen U.S. leadership of this effort 
achieve a generational leap forward in NATO Allied and Partner SOF 
capabilities. We have been able to achieve this by leveraging the 
unique framework of the NATO Alliance as a vehicle to achieve greater 
effectiveness, efficiency, and coherence of special operations. 
Frankly, this is one of the unrecognized advantages or residual 
benefits of exploiting an Alliance framework. Beyond Afghanistan, the 
continued evolution of NATO Allied and Partner SOF into a more agile 
and dynamic force, and capitalization on best practices, will better 
enable these forces to augment and compliment U.S. national and theater 
level efforts against enduring challenges such as terrorism and 
proliferation of WMD.
    The breadth of the NSHQ's involvement beyond the 26 Allies that 
maintain SOF are also of interest to SOCOM. These evolutionary effects 
among NATO Allied and Partner SOF also resonate with and influence 
international SOF well beyond the NATO Alliance via other NATO 
cooperative mechanisms such as Partnership for Peace, the Mediterranean 
Dialogue, the Istanbul Cooperative Initiative, the European Union and 
NATO collaboration with ``contact countries'' such as Australia, and 
New Zealand. The continued maturation and codification of the NSHQ's 
Allied and Partner Collaborative Network will allow for comprehensive 
and sustained engagement among the NATO Allied and Partner SOF ``human 
network,'' which is in fact a de facto regional node of SOCOM's broader 
Global SOF Network. This SOF human network takes a long view towards 
fostering deeper and more effective enduring relationships among SOF, 
and for this reason, NSHQ is of great interest to SOCOM.

    14. Senator Hagan. Vice Admiral McRaven, if confirmed, how would 
you seek to build the relationship between SOCOM and the NATO SOF HQ?
    Admiral McRaven. The Secretary of Defense's (SECDEF) November 5, 
2010, designation of SOCOM as the Lead Component Tasked with Executive 
Agent Responsibilities for the NSHQ established the framework for the 
relationship between SOCOM and the NSHQ in accordance with the 2010 
National Defense Authorization Act. Specifically, SECDEF charged SOCOM 
with providing NSHQ with advocacy for resources, personnel, and funding 
within the Department; establishing the appropriate links with NSHQ to 
share best practices and lessons learned; creating mechanisms to 
provide NSHQ with the latest releasable U.S. policy, strategy, 
operations, tactics, and training for SOF; and serving as interlocutor 
for NSHQ to the Joint Staff and the Office of the Secretary of Defense. 
So, the basis or foundation for the relationship already exists, and 
SOCOM has since established a NSHQ Working Group specifically oriented 
on the NSHQ.
    Additionally, myself and ADM Olson both have been habitually 
engaged and involved in bi-annual NATO Allied and Partner SOF 
Commanders' Conferences over the last several years. We have been 
active members of this growing NATO Allied and Partner Collaborative 
``human'' Network alongside the other national SOF representatives. 
Indicative of this degree of involvement, in May of this year at the 
NATO Allied and Partner SOF Symposium in Krakow, Admiral Olson offered 
to host the next symposium in conjunction with SOCOM's May 2012 
International SOF Week in Tampa. As you can imagine, this is a superb 
opportunity to diversify our broader global SOF outreach efforts 
alongside the NSHQ's annual event and anticipated strong NATO SOF 
participation.
    From a SOCOM perspective, the NSHQ is viewed as a force multiplier, 
that leverages the unique venue of NATO to effectively and efficiently 
enhance the capability, capacity, and interoperability of U.S. and NATO 
Allied and Partner SOF from a centralized hub of influence within the 
Alliance. U.S. framework nation activities of the NSHQ support U.S. 
objectives through the construct of the Alliance to achieve commonality 
of doctrine, procedures, and equipment among NATO Allied and Partner 
SOF. This is an unprecedented opportunity for SOCOM to participate, 
lead, and influence where appropriate this aspect of commonality 
relative to SOF and multinational interoperability. This commonality 
creates an enduring framework for collective interoperability shaped 
and influenced by U.S. leadership of the NSHQ, rather than relying on 
short-term ad hoc solutions. So I think it is beneficial and in our 
interests to work closely with the NSHQ in these areas that are part of 
the mandate set forth by the Secretary of Defense. Ultimately, these 
efforts better posture NATO Allied and Partner SOF to provide world 
class complimentary capabilities alongside U.S. SOF or independently in 
support of U.S. objectives relative to contemporary and emerging 
challenges. Afghanistan is a prime example and the NATO Allied and 
Partner SOF contribution is not something we take lightly, it is a 
significant, sizable, and potent SOF element. So again, from a SOCOM 
perspective, access, influence and participation in the NSHQ provide a 
very beneficial venue for a parallel and complimentary line of effort 
to other U.S. bilateral and multilateral means to build NATO Allied and 
Partner SOF capacity and capability. As a result, SOCOM will continue 
to look for opportunities to evolve further, what has been very 
successful collaboration thus far.

          SPECIAL OPERATIONS FORCES AND GENERAL PURPOSE FORCES

    15. Senator Hagan. Vice Admiral McRaven, the 2010 Quadrennial 
Defense Review called for increased counterinsurgency, 
counterterrorism, and security force assistance capabilities within the 
General Purpose Forces. These missions have traditionally been within 
the purview of SOFs. What actions, if any, do you believe need to be 
taken in order to allow SOFs and General Purpose Forces to successfully 
share these missions in the future?
    Admiral McRaven. Doctrinally, all forces may have a role in these 
missions. Today, General Purpose Forces are participating in these 
mission sets globally, whether in the lead or in support of SOF. 
However, by approaching mission planning with a mid- to long-term view 
of the objectives and an holistic view of force capabilities, planners 
will increase both their force sourcing and force employment teaming 
options between General Purpose Forces and SOF for successful mission 
execution.

    16. Senator Hagan. Vice Admiral McRaven, are there certain mission 
areas that should be reserved for SOFs only?
    Admiral McRaven. Counterterrorism and Unconventional Warfare 
missions should be reserved solely for SOF. In addition, the mission of 
Counterproliferation of Weapons of Mass Destruction, conducted in a 
hostile environment, should be reserved for SOF only. However, other 
SOF core activities, when conducted in politically sensitive areas, 
should be directed towards SOF as the primary force, supported by 
General Purpose Forces as required.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

              SECURITY ASSISTANCE AND ENGAGEMENT PROGRAMS

    17. Senator Inhofe. Vice Admiral McRaven, our military-to-military 
(1206), civilian-to-civilian (1207), small-scale special operations 
(1208), CERP, and Combatant Commander's Initiative Fund have been 
incredibly successful in aiding developing nations, fighting terrorism, 
and providing resources for emergency situations. My belief is that the 
key to these programs has been the combined efforts of DOD, DOS, the 
chiefs of mission, and combatant commanders working together to 
increase the capabilities of our partner nations to provide for their 
own security, increasing stability in their region and around the 
globe. What value do these funds provide in your prospective areas of 
responsibility?
    Admiral McRaven. Section 1208 authority, which is specifically for 
SOF to enable foreign regular and irregular forces directly supporting 
our combating terrorism operations, has been tremendously useful in 
Iraq, Afghanistan and other key locations in our efforts to disrupt 
terrorist networks. The foreign elements that we leverage through 
section 1208 authority have been crucial in finding and fixing the 
enemy, resulting in more precise and timely targeting, reduced risk to 
our forces, and minimal civilian casualties. We have also worked to 
leverage 1206 authority in areas such as the Philippines to support 
their counterterrorist activities in Mindanao.

    18. Senator Inhofe. Vice Admiral McRaven, do you have any concerns 
about being able to effectively execute these programs in your 
prospective areas of responsibility?
    Admiral McRaven. SOCOM has and maintains effective processes and 
procedures to execute these programs as currently established. Each of 
these programs, however, has specific purposes with limited annual 
funding that can cause the disaggregation of a holistic plan in order 
to meet the requirements and purpose of a specific program. 1206, for 
example, prohibits the training of non-Ministry of Defense forces with 
the exception of foreign maritime security forces. Many Partner 
Nations, however, maintain their CT forces outside of their Ministry of 
Defense. Additionally, there are border security and other paramilitary 
forces that conduct military tasks relevant to counterterrorism and 
counter insurgency that SOF or other DOD units would be best suited to 
train. In order to improve the combined efforts of the DOD, DOS, chiefs 
of mission and combatant commanders to aid developing countries to 
fight terrorism, insurgency and trans-criminal organizations; we should 
appropriately modify these programs that would allow DOD to train and 
equip all Partner Nation security forces that are conducting 
traditional U.S. military tasks, roles and missions. This would allow 
SOF and other DOD assets to improve its effective support to DOS and 
chiefs of mission initiatives to improve Partner Nations' capabilities 
to fight terrorism, insurgency and transcriminal organizations in a 
holistic, proactive manner. Additionally, DOD and the combatant 
commanders should develop resource informed, multi-year plans that are 
informed by DOS Mission Strategic Resource Plans that would link 
initiatives in these programs to more long-term Foreign Military 
Finance funded programs which would enable measurable phased-in 
approaches to aid developing countries efforts to fight terrorism, 
insurgency and transnational criminal organizations. Lastly, 
improvements to these programs, coupled with mutually supportive 
interagency plans will be extremely valuable in developing approaches 
to deal with the aftermath of the ``Arab Spring'' so that these nations 
do not fall into the influence of al Qaeda or other like minded 
extremist organizations.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                COUNTERTERRORISM RESOURCING/AUTHORITIES

    19. Senator Chambliss. Vice Admiral McRaven, although highly 
desired, perfection with respect to counterterrorism has yet to be 
obtained. While our capabilities have greatly improved since September 
11, some security experts speculate that the military personnel charged 
with combating terrorism are still not properly trained, robustly 
staffed, or sufficiently resourced to effectively combat all the 
emerging threats to our national security. What, if any, resources or 
authorities do you feel the counterterrorism community lacks in order 
to adequately combat the host of emerging threats to our national 
security?
    Admiral McRaven. The military component of the counterterrorist 
community, specifically the joint SOF for which HQ SOCOM has 
responsibility, will have adequate resources to execute currently 
approved plans and missions, if the current Program Objective 
Memorandum input and the related OCO-to-Base requests are accepted 
during the DOD budget approval process.
    The plans in effect currently have adequate authorities, in law and 
policy, to pursue the nationally assigned strategic and operational 
counterterrorism (CT) objectives. We have several major CT plans in 
development, including the third revision of the DOD global CT campaign 
plan, and its SOF supporting plan, for which modified or additional 
authorities may become necessary. However, at the current stage of plan 
development, it is too early to speculate on specific authorities that 
may need to be modified or added. As these plans are presented to the 
Secretary of Defense for guidance during the coming year, any potential 
new requirements should become more readily apparent.

                     SPECIAL OPERATIONS ACTIVITIES

    20. Senator Chambliss. Vice Admiral McRaven, section 167, title 10, 
U.S.C., defines 10 activities as ``special operations'' activities 
insofar as each relates to special operations. While there is a 
catchall proviso listed as well, [i.e. ``such other activities as may 
be specified by the President or the Secretary of Defense''], given the 
2006 realignment of all Reserve Civil Affairs and Psychological 
Operations/Military Information Support Operations (MISO) forces from 
SOCOM, where they supported both the general purpose force and SOFs, to 
the U.S. Army Reserve Command, where they now primarily support the 
general purpose force, should civil affairs and psychological 
operations have remained on this list of special operations activities?
    Admiral McRaven. Although frequently coordinated for mutual support 
and synergy of effect, Civil Affairs (CA) and (MISO previously called 
Psychological Operations (PsyOp)) are distinct activities and should 
not be regarded as synonymous. As such, the following responses address 
each activity separately:
    The skill set associated with providing strategic influence 
capabilities, coupled with the intricacies of foreign audiences 
specifically in today's asymmetric warfare, make military information 
support operations a natural fit with the irregular and unconventional 
nature of special operations activities. So, the simple answer to your 
question is ``yes'', MISO is a special operations activity and should 
remain as such. This section does not restrict other DOD components 
from performing the activities. It is the mission profile and the 
supported unit that determine whether the particular mission is a 
conventional or special operation. However, in order for the MISO 
community to advise on the graduate-level cultural and social nuances 
required in the current and future operating environment, professional, 
multi-tiered training and up-to-date technological operating systems 
are a must. Unfortunately, similar to the dilemma faced by most of our 
Reserve component, time and other resource constraints force them to 
focus mainly on tactical missions. Several studies fundamental to this 
issue are in staffing throughout the Department of Defense. 
Recommendations from these comprehensive analyses are being validated 
through a joint and service requirements process, and will provide 
incremental solutions for this systemic challenge.
    CA should be left as is in title 10, section 167 as a special 
operation activity. Leaving CA as a SOF activity, when conducted by SOF 
units, increases the scope of activities which SOCOM can pursue as it 
fulfills its strategic objectives. It allows SOF to expend MFP 11 (SOF) 
funds to prepare for Humanitarian Assistance and Disaster Relief 
operations; provides authority for SOF to engage in CA operations 
consisting of support to civil administration, nation assistance; and 
complements our direct action capability with more unique missions in 
the building partnership capacity line of operation designed to 
reinforce our friends and strengthen their ability to maintain security 
and stability within their borders.
    I do believe, however, that amendments to the U.S. Code may be 
appropriate to better clarify the role of CA within the Department of 
Defense. Although it is a key SOF enabler, CA is not a unique SOF 
capability and is in fact required and used by non-special operations 
units. CA units are currently used to supplement Provincial 
Reconstruction teams in theater; historically have been used to provide 
military governance in an occupied territory with no host nation 
governance capability in place; and provide an interagency and 
nongovernmental organization (NGO) link during operations through the 
establishment of civil military operations centers.

    21. Senator Chambliss. Vice Admiral McRaven, given this change of 
command and control, how do you reconcile the fact that Reserve 
component CA and Psychological Operations/MISO soldiers continue to 
perform what is technically defined as a special operations activity 
without commensurate authorities, training, equipping, or funding when 
they deploy in support of combat operations in Iraq, Afghanistan, and 
the Horn of Africa?
    Admiral McRaven. Although frequently coordinated for mutual support 
and synergy of effect, CA and MISO are distinct activities and should 
not be regarded as synonymous. As such, the following responses address 
each activity separately:
    Other non-Special Operations DOD entities can, and do, perform 
section 167 functions. For example, humanitarian assistance is 
performed by many agencies. Reserve component MISO performs a Special 
Operations activity with a conventional mission profile, but it is 
still MISO. They have accomplished their mission with great competence, 
and have unmistakably contributed to the combat successes of their 
supported units operating under authorities derived from the supported 
Geographic Combatant Commander.
    U.S. Army JFK Special Warfare Center and School is the proponent 
for all Army MISO and, commensurate with that responsibility, is 
refining the training progression and materiel solutions to provide a 
more capable and flexible total MISO force. Since the 2006 realignment, 
that force exists under two separate chains of command, and Reserve 
component MISO funding has been outside the purview of SOCOM. We are 
now reorganizing the Active component MISO forces to better support SOF 
and General Purpose Forces, when required. The MISO studies currently 
in the requirements process recommend reviewing how best to organize 
DOD MISO forces to support the DOD, and I support that concept.
    CA is not solely a SOF function. The wording of section 167 states 
that CA is a Special Operations Activity ``insofar as it relates to 
special operations.'' CA units are conducting Civil Affairs Operations 
(CAO) outside of SOF, and the need for them to do so in support of non-
SOF units and operations is indisputable. I would note that the U.S. 
Marine Corps and U.S. Navy both operate a CA capability which is 
conventional, not SOF unique. The Marine Corps has operated their 
conventional Civil Affairs Groups (CAG) since 1985.
    CA is inherently joint, interagency, and multinational in scope for 
planning and operations and is critical to both special and 
conventional operations and forces. CA is not just a capability 
required by SOF, it is a capability required by all. CA units conduct 
the same core missions whether assigned to a SOF or conventional unit; 
however, each employs this capability in different operating 
environments. SOF units work in austere, often sensitive areas which 
require special training and preparation while CA units in conventional 
forces support conventional warfare operations. For example, SOCOM 
operates a Civil Military Engagement program which uses SOF CA teams to 
compliment and enable select U.S. Embassy Mission Strategic plans in 
conjunction with U.S. Country Teams. These teams work in austere, 
politically sensitive, or strategically critical areas to further the 
goals outlined in the strategic plans.
    There are two ways ahead for the CA capability. Clarification is 
needed in the law to define CA as not just a Special Operations 
Activity, but a core activity for non-SOF military forces as well. 
Second, the man, train, and equip mission for CA should not reside in a 
SOF organization. The Services should have this mission for their 
respective CA forces in their force structure. This will require them 
to provide guidance, combat development, and authorities needed for 
them to execute their conventional missions for their Service and the 
Joint Force as codified in current strategy and guidance documents. 
SOCOM will focus on those CA units assigned to us and ensure they 
receive additional SOF specific equipment, training, or guidance needed 
to support SOF.

    22. Senator Chambliss. Vice Admiral McRaven, does this apparent 
statutory discrepancy need to be addressed or clarified?
    Admiral McRaven. Although frequently coordinated for mutual support 
and synergy of effect, CA and MISO are distinct activities and should 
not be regarded as synonymous. As such, the following responses address 
each activity separately:
    Activities listed in section 167 are each special operations 
activities insofar as they relate to special operations. Therefore, 
when conducted by SOF units they are special operations, when conducted 
by non-SOF units they are not. It simply provides authority for SOF to 
conduct missions like MISO and expend MPF-11 funds to do so. Amendments 
to the U.S.C. may be appropriate to better articulate the role and 
responsibilities when these activities are performed by non-SOF units.
    I do not believe that section 167 should be amended to remove CA as 
a special operations activity. It should remain as it provides 
authority for SOF to conduct CA missions and spend MPF-11 funds on CA 
units assigned to SOF.
    The current wording of section 167 clearly and unambiguously states 
that CA ``insofar as it relates to special operations'' is a Special 
Operations Activity. Therefore, all other CA activities conducted by 
non-SOF units are not in the SOF purview since they are conducting 
conventional operations outside the SOCOM operational chain. Likewise, 
if the 95th CA Brigade (A) units are performing CA operations and 
activities in support of a SOF mission, it is clearly a special 
operations activity since they reside in the operational SOCOM chain.
    I do believe that amendments to the U.S.C. may be appropriate to 
better articulate the role and entities responsible for CA outside of 
SOCOM. CA is not a unique SOF capability, and is in fact required and 
used by non-special operations units. CA units are currently used to 
supplement Provincial Reconstruction Teams in theater; historically 
have been used to provide military governance in an occupied territory 
with no host nation governance capability in place; and provide an 
interagency link during operations through the establishment of civil 
military operations centers.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                       FACIAL RECOGNITION SYSTEM

    23. Senator Wicker. Vice Admiral McRaven, I understand there is a 
need for collecting and processing real-time intelligence in the field 
where the presence of bandwidth may be limited or non-existent. Do you 
believe there is a need for a lightweight, portable, real-time facial 
recognition system which can recognize and record enemy combatants in a 
matter of seconds, inconspicuously at a standoff distance without the 
use of bandwidth?
    Admiral McRaven. Yes, this could be a useful capability, but it is 
not a top priority. Facial recognition is not on our top 10 list of 
Identity Management Technical Development Priorities. Special 
Operations Development and Acquisition Science and Technology Division 
tracks, researches and evaluates emerging technologies for SOF 
development. Facial recognition technologies are still considered an 
immature and inaccurate means of obtaining a positive identification. 
Operational deployment of unconstrained facial recognition technology 
will introduce significant deviations in subject control, impacting 
image quality and performance. Therefore, facial recognition at a 
distance is still considered a ``soft biometric'', and will not be 
relied upon for positive identification in a tactical decision 
scenario. SOCOM anticipates this technology will be operationally 
viable within the next 5 to 7 years. Meanwhile, a stand-off capability 
could add value as a triage tool for identifying potential targets at 
long distances.
    Current Facial Recognition Capability: SOCOM and other DOD 
organizations submit facial photos of persons of interest to the DOD 
Automated Biometrics Identification System (ABIS). ABIS includes a 
facial recognition capability that produces a list of potential matches 
when queried which then must be manually reviewed by a skilled examiner 
to determine a match/no match. Since January 29, 2009, SOCOM has 
received the following facial recognition matches:

    <bullet>  Face Only: 219
    <bullet>  Face, Finger, Iris: 4477
    <bullet>  Face and Iris: 115
    <bullet>  Face and Finger: 1996

    There were 78,738 total biometric matches during this timeframe, so 
face was involved in 9 percent of total matches.
    The SOCOM Sensitive Site Exploitation Capabilities Development 
Document v.2, dated October 30, 2009, outlines the current requirements 
for a tactical facial recognition capability.

    24. Senator Wicker. Vice Admiral McRaven, if it does not already, 
should an operational requirement for such a system exist?
    Admiral McRaven. The SOCOM Sensitive Site Exploitation Capabilities 
Development Document v.2, dated October 30, 2009 addresses the SOF 
requirement for Facial Recognition. Paragraph 6 d., Tactical Biometrics 
Capability 3.
    Facial Recognition states: ``Provide a ruggedized means to collect 
digital facial images at the minimum required resolution (currently 
five megapixels) and store images using the approved format (currently 
JPEG or JPEG 2000 format.) Objective capability would be a standoff 
facial recognition/geometry capability utilizing digital photographic 
capture technology of a person at 300 meters, and have it cross 
referenced with facial recognition software. It should interoperate 
with existing SOF software platforms.''
                                 ______
                                 
    [The nomination reference of VADM William H. McRaven, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    VADM William H. McRaven, 0000.
                                 ______
                                 
    [The biographical sketch of VADM William H. McRaven, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of VADM William Harry McRaven, USN




  06 Nov. 1955............................  Born in Pinehurst, NC
  08 June 1977............................  Ensign
  08 June 1979............................  Lieutenant (junior grade)
  01 July 1981............................  Lieutenant
  01 Jan. 1987............................  Lieutenant Commander
  01 Sep. 1991............................  Commander
  01 Apr. 1998............................  Captain
  01 Aug. 2004............................  Rear Admiral (lower half)
  23 July 2006............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
  01 June 2007............................  Rear Admiral
  13 June 2008............................  Vice Admiral, Service
                                             continuous to date



    Major duty assignments:

------------------------------------------------------------------------
                   Assignments                       From         To
------------------------------------------------------------------------
NROTC Unit, University of Texas (DUINS).........    May 1977   July 1977
Naval Amphibious Base, Coronado, San Diego, CA     July 1977   Jan. 1978
 (DUINS)........................................
Underwater Demolition Team Eleven (Assistant       Jan. 1978   Jan. 1980
 Platoon Commander).............................
Naval Special Warfare Unit One (Intelligence       Feb. 1980   Feb. 1982
 Officer).......................................
SEAL Team Six (Team Leader).....................   Feb. 1982   Mar. 1983
USS Spiegel Grove (LSD 32) (Officer in Charge of   Apr. 1983   Oct. 1983
 Special Warfare Detachment for Unitas XXTV)....
SEAL Team Four (Platoon Commander)..............   Oct. 1983   Dec. 1984
Swimmer Delivery Vehicle Team Two (Operations      Dec. 1984   Apr. 1986
 Officer).......................................
Office of the Chief of Naval Operations (Sea/SDV   Apr. 1986   Aug. 1988
 Branch Head) (OP-31)...........................
Commander, Naval Special Warfare Group One         Aug. 1988   Dec. 1988
 (Special Projects Officer).....................
XO, SEAL Team One...............................   Dec. 1988   June 1990
Commander, Naval Special Warfare Command           June 1990    May 1991
 (Assistant Current Operations).................
Naval Postgraduate School, Monterey, CA (DUINS).   June 1991   June 1993
Commander, Naval Special Warfare Command           June 1993   June 1994
 (Training and Readiness Officer)...............
CO, SEAL Team Three.............................   June 1994   June 1996
Commander, Naval Special Warfare Group One         June 1996   Oct. 1997
 (Chief of Staff)...............................
Commander, U.S. Special Operations Command         Oct. 1997   Sep. 1999
 (Division Chief and SOCOM Strike Assessment
 Director)......................................
Commander, Naval Special Warfare Group One......   Sep. 1999   Oct. 2001
National Security Council, The White House         Oct. 2001   July 2003
 (Director for Strategy and Defense Issues).....
Commander, U.S. Special Operations Command         July 2003   June 2006
 (Deputy Commanding General for Operations,
 Joint Special Operations Command)..............
Commander, Special Operations Command Europe/      June 2006   June 2008
 Director, Special Operations, U.S. European
 Command........................................
Commander, Joint Special Operations Command/       June 2008     To date
 Commander, Joint Special Operations Command
 Forward, U.S. Special Operations Command.......
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal with Bronze Oak Leaf Cluster
    Legion of Merit with one Gold Star
    Bronze Star with one Gold Star
    Defense Meritorious Service Medal
    Joint Service Commendation Medal
    Navy and Marine Corps Commendation Medal
    Combat Action Ribbon
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon
    National Defense Service Medal with one Bronze Star
    Southwest Asia Service Medal with three Bronze Stars
    Afghanistan Campaign Medal
    Iraq Campaign Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon
    Navy and Marine Corps Overseas Service Ribbon
    Kuwait Liberation Medal (Kingdom of Saudi Arabia)
    Kuwait Liberation (Kuwait)
    Rifle Marksmanship Medal with Silver ``E''
    Pistol Marksmanship Medal with Silver ``E''

Special qualifications:
    BJ (Journalism) University of Texas, 1977
    MA (National Security Affairs) Naval Postgraduate School, 1993
    Designated Special Warfare Officer, 1978
    Designated Joint Specialty Officer, 2003
    Capstone, 2006-2
    Designated Level IV Joint Qualified Officer, 2009

Personal data:
    Wife: Georgeann Brady of Dallas, TX
    Children: William B. McRaven (Son); Born: 13 March 1979
    John E. McRaven (Son); Born: 13 January 1982
    Kelly M. McRaven (Daughter); Born: 3 February 1991

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Commander, U.S. Special             Oct. 97-Sep. 99   CDR/CAPT
 Operations Command (Division
 Chief and SOCOM Strike
 Assessment Division).
National Security Council, The      Oct. 01-July 03   CAPT
 White House (Director for
 Strategy and Defense Issues).
Commander, U.S. Special             July 03-June 06   CAPT/RDML
 Operations Command (Deputy
 Commanding General for
 Operations, Joint Special
 Operations Command).
Commander, Special Operations       June 06-June 08   RADM
 Command Europe/Director,
 Special Operations, U.S.
 European Command.
Commander, Joint Special            June 08-To Date   VADM
 Operations Command/Commander,
 Joint Special Operations
 Command Forward, U.S. Special
 Operations Command.
------------------------------------------------------------------------

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by VADM William 
H. McRaven, USN, in connection with his nomination follows:]
                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William H. McRaven.

    2. Position to which nominated:
    Commander, U.S. Special Operations Command.

    3. Date of nomination:
    April 6, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 6, 1955; Pinehurst, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Georgeann Brady McRaven (Maiden name: Brady).

    7. Names and ages of children:
    William Brady McRaven, age 31.
    John Emory McRaven, age 28.
    Kelly Marie McRaven, age 19.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Underwater Demolition Team/Seal Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None beyond what's listed in my Service record.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                William H. McRaven.
    This 16th day of March, 2011.

    [The nomination of VADM William H. McRaven, USA, was 
reported to the Senate by Chairman Levin on June 29, 2011, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 30, 2011.]
                              ----------                              

    [Prepared questions submitted to LtGen John R. Allen, USMC, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF)?
    Answer. The Commander of ISAF (COMISAF) is the senior NATO 
uniformed officer in Afghanistan. He is the in-theatre operational 
commander of all ISAF forces in Afghanistan and is tasked with: (a) 
employing assigned forces and conducting population-centric 
counterinsurgency operations; (b) enabling an expanded and effective 
ANSF capable of fighting their own counterinsurgency; (c) providing 
support to governance and development efforts to protect the Afghan 
people and to provide a secure environment for sustainability; and (d) 
evaluating ISAF security, governance, and development support 
activities.
    ISAF is a NATO-directed operation conducted under United Nations 
Security Council Resolution (UNSCR) 1386 (2001), which authorizes the 
establishment of ISAF to assist the Afghan Government in maintaining 
security in Kabul and surrounding areas and to take all necessary 
measures to fulfill this mandate.
    Following a United Nations (U.N.) and NATO/North Atlantic Council 
agreement, NATO assumed strategic command of ISAF on 11 August 2003 
under the authority of UNSCR 1386 and successor UNSCRs. Subsequently, 
UNSCR 1510 (2003) geographically expanded the ISAF mandate established 
in UNSCR 1386 to cover all of Afghanistan.
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Forces Afghanistan (USFOR-A) and how do those 
duties and functions relate to those of the Commander, NATO ISAF?
    Answer. The Commander of USFOR-A is the senior U.S. officer in 
Afghanistan with duties distinct from his duties as Commander, ISAF. 
Commander, USFOR-A exercises National Command Element and National 
Support Element authorities and responsibilities ensuring that U.S. 
forces have the guidance, equipment, and funding they need to conduct 
their missions. He ensures unity of effort among all U.S. forces 
including those under the ISAF command and those forces not under ISAF 
command, such as those U.S. forces conducting U.S. detention operations 
and U.S. counterterrorism operations.
    COMISAF employs the forces that troop-contributing nations provide 
to ISAF. The United States remains the largest troop-contributing 
nation to ISAF. The Commander, USFOR-A, directs and oversees the U.S. 
military contributions within ISAF. COMISAF ensures that the operations 
of all troop-contributing nations, including those of U.S. forces, are 
coordinated.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Since the chain of command for the Afghanistan theater runs 
through Central Command (CENTCOM), as the Deputy Commander of CENTCOM 
from 2008-2011, I had the opportunity to work very closely on 
Afghanistan. During that time, I traveled to Afghanistan multiple times 
as well as other countries in the CENTCOM Area of Operations, including 
Pakistan. As a result, and if confirmed, I believe I understand 
Afghanistan and the region and also believe that my personal 
relationships with senior military and government leaders in the region 
will contribute to my ability to perform my duties at ISAF.
    I also served as the deputy commanding general of the II Marine 
Expeditionary Force (Forward) when it deployed to Iraq's Anbar Province 
from 2007-2008. That experience not only prepared me for battlefield 
command and the harsh reality of war, but it also taught me a 
tremendous amount about the nature of this kind of conflict and the 
complex challenges unique to counterinsurgencies. This was driven home 
in particular during the ``Anbar Awakening,'' which occurred during my 
time in Iraq.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NATO ISAF, and/or Commander, USFOR-A?
    Answer. I believe that a professional military officer should never 
stop learning. I believe that my experiences have prepared me for this 
position, but, if confirmed, I will constantly educate myself about the 
strategic environment so that I can lead a force that is resilient and 
adaptive to the ever-changing battlefield--key requirements in this 
kind of conflict.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander, NATO ISAF/Commander, USFOR-A, to the following:
    The Secretary of Defense.
    Answer. The Commander, USFOR-A reports to the Commander, CENTCOM 
who, in turn, reports directly to the Secretary of Defense. This 
reporting relationship is prescribed in 10 U.S.C. Section 164(d)(1). 
COMISAF does not have a formal relationship with the Secretary of 
Defense because COMISAF reports to the NATO chain of command 
(Commander, Joint Forces Command-Brunssum), who reports to the Supreme 
Allied Commander Europe (SACEUR).
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Commander, USFOR-A does not have a formal command 
relationship with the Chairman of the Joint Chiefs of Staff, but he 
coordinates with him through the Commander, CENTCOM, on a regular 
basis. The Chairman is the principal military advisor to the President, 
the Secretary of Defense, and the National Security Council. Although 
he is the Nation's senior military officer, the Chairman is not in the 
chain of command. The Commander, USFOR-A sends his advice and opinions 
on military operations to the Commander, CENTCOM who, in turn, presents 
them to the Chairman.
    Question. NATO Supreme Allied Commander, Europe.
    Answer. NATO Supreme Allied Commander, Europe, is the NATO 
strategic-level commander of all NATO forces, including those assigned 
to the NATO mission in Afghanistan. He provides Commander, Joint Forces 
Command Brunssum (JFC-B), with strategic guidance and direction. JFC-B 
is NATO's operational level command that is responsible for the mission 
in Afghanistan. In turn, Commander, JFC-B, directs COMISAF with respect 
to SACEUR's and JFC-B's campaign objectives and COMISAF's performance 
of key military and supporting tasks, as mandated by the North Atlantic 
Council.
    Question. Commander, U.S. Central Command.
    Answer. The Commander, USFOR-A works very closely with the 
Commander, CENTCOM on all aspects of U.S. military operations in 
Afghanistan.
    By law, the Commander, USFOR-A reports directly to the Commander, 
CENTCOM. The Commander, CENTCOM exercises authoritative direction and 
control over all U.S. Forces in the CENTCOM area of responsibility, 
which includes all U.S. Forces in Afghanistan. The Commander, CENTCOM 
provides authoritative direction over all aspects of military 
operations, joint training, and logistics. He has delegated National 
Command Element and National Support Element authority and 
responsibilities to the Commander, USFOR-A.
    Question. Commander, NATO Training Mission--Afghanistan/Commander, 
Combined Security Transition Command Afghanistan.
    Answer. Commander, NTM-A/CSTC-A reports to COMISAF/Commander, 
USFOR-A. NTMA/CSTC-A is a subordinate HQ to both HQ ISAF and HQ USFOR-
A. The CSTC-A element retains its U.S.-only character primarily for 
funding and administrative authorities, and responds to the U.S. chain 
of command. The NAC established NTM-A in April 2009, and it was merged 
into CSTC-A in March 2010 under a dual-hatted commander.
    Question. Commander, ISAF Joint Command.
    Answer. Commander, ISAF Joint Command (IJC), reports to COMISAF. 
IJC is ISAF's operational-level command and is subordinate to HQ ISAF. 
IJC was established in November 2009. The IJC Commander is also dual-
hatted as the Deputy Commander, USFOR-A, and retains certain U.S. 
command authorities.
    Question. U.S. Ambassador to Afghanistan.
    Answer. The Commander, USFOR-A provides operational assistance and 
advice, to include U.S. military views and recommendations, to the U.S. 
Ambassador. He maintains a close working relationship with the 
Ambassador to ensure that military and civilian efforts are 
synchronized and mutually supporting. This is particularly important in 
the Rule of Law arena where the Department of State has the lead for 
the U.S. Government. The Commander, Combined Joint-Interagency Task 
Force 435 (who reports directly to the Commander, USFOR-A), provides 
support to the Ambassador for Rule of Law and Law Enforcement, who 
reports directly to the U.S. Ambassador.
    Question. The Secretary General of NATO.
    Answer. The NATO Secretary General chairs the North Atlantic 
Council, the highest political authority in NATO, responsible for the 
overall decisions and direction of NATO policy and operations. The 
North Atlantic Council is comprised of ambassador-level representatives 
of all NATO members, including the United States. The Council is 
advised on military matters and the conduct of operations by the 
Military Committee, which is also composed of senior military 
representatives from each member state. The Council, under the 
Secretary General's leadership, provides overall direction and guidance 
to the military chain of command. In practical terms, the Supreme 
Allied Commander Europe (SACEUR) leads all NATO military operations and 
advises NATO's Military Committee. Thus, in the case of the ISAF 
mission, the Secretary General, following consultations and decisions 
by the North Atlantic Council, provides guidance and direction to 
SACEUR through the Military Committee, and the SACEUR communicates 
those directives and guidance through NATO's military chain of command. 
COMISAF and the Secretary General confer and consult regularly, 
including formal updates to the Secretary General and the North 
Atlantic Council on the progress of military operations in Afghanistan.
    Question. NATO Senior Civilian Representative for Afghanistan.
    Answer. The NATO Senior Civilian Representative-Afghanistan (SCR) 
is the civilian counterpart to COMISAF. As the NATO Secretary General's 
direct representative in Afghanistan, the SCR is charged with carrying 
forward the political aspects of NATO's engagement in Afghanistan.
    Although there is no formal command relationship, the SCR and 
COMISAF work in close concert and with full transparency following the 
North Atlantic Council approved Terms of Reference for the SCR and 
SACEUR and Commander JFC-B's guidance for COMISAF. In short, this 
cooperative relationship is critical to underwrite NATO's operational 
military and political engagement in Afghanistan and can help to 
improve cooperation between ISAF and international civilian agencies in 
Afghanistan.
    Question. United Nations Special Representative in Afghanistan.
    Answer. U.N. Special Representative of the Secretary-General (SRSG) 
for Afghanistan is an important leader in the international community's 
efforts in Afghanistan. While no command relationship exists between 
COMISAF and the UN SRSG, the ISAF mission was authorized by U.N. 
Security Council Resolution to assist the Afghan Government in the 
establishment of a secure and stable environment. Similarly, the UN 
SRSG has a mandate to lead the UN Assistance Mission in Afghanistan 
(UNAMA) in supporting the Afghan Government in its efforts to improve 
critical areas, including security, governance, economic development, 
and regional cooperation, as well as to support the full implementation 
of mutual commitments made on these issues at the London Conference in 
January 2010 and the subsequent Kabul Conference in July 2010. The 
SACEUR Operational Plan states that COMISAF is expected to work in 
close coordination with both the NATO SCR and the U.N. SRSG. These 
partnerships support efforts to work with the Afghan Government to 
ensure progress towards the goal of a self-sufficient Afghanistan.
           afghanistan-pakistan strategy and major challenges
    Question. In his speech at West Point in December 2009, the 
President formulated his strategy for Afghanistan and Pakistan.
    Do you agree with that strategy?
    Answer. Yes.
    Question. What are the major challenges and problems you foresee, 
if confirmed as the next Commander, NATO ISAF/Commander, USFOR-A, in 
the implementation of that strategy?
    Answer. Significant challenges will persist in Afghanistan. Among 
them, the Taliban will seek to recover lost ground, particularly in the 
south and southwest. Insurgent organizations such as the Haqqani 
network will continue to threaten our ability to secure some of the 
population in the east and will also seek to conduct high-profile 
attacks in the capital region. Transnational terrorist groups such as 
al Qaeda will seek to establish new bases and safe havens in both 
Afghanistan and Pakistan. Corruption and other challenges to good 
governance will need to be addressed. Finally, although the mission is 
on track, there will be challenges as we build the Afghan National 
Security Forces to the point where they can assume full responsibility 
for Afghanistan's security.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. We must continue to focus on protecting the population, 
degrading the insurgency, and developing Afghan Security Forces that 
can assume more responsibility. Additionally, we have to continue--and, 
in some cases--expand our efforts on issues ranging from security to 
good governance and Rule of Law. For example, we have to continue 
building layered defenses to prevent insurgent infiltration from 
Pakistan and we also have to continue working with our Afghan partners 
to address corruption. If confirmed, I will work closely with 
international, Afghan, and Pakistani partners on all lines of effort of 
the campaign plan to maintain and accelerate the momentum that our 
campaign has generated.
    Question. On June 22, 2011, the President announced his decision 
regarding the beginning of reductions of U.S. forces in Afghanistan and 
the size and pace of reductions through 2012.
    Do you agree with the President's decision to begin reducing U.S. 
forces in July 2011? Why or why not?
    Answer. Although I was not a participant in the discussions about 
the various options, I agree with the President's decision to begin 
reducing forces. The troops that will be redeployed in July represent 
the fulfillment of the President's commitment to both resource the 
strategy he enunciated at West Point but also to demonstrate to Afghan 
leadership the urgency of increased Afghan National Security Force 
strength and capability to assume its proper role in securing 
Afghanistan. In the context of our longer-term goal of transitioning 
security responsibility to Afghans by the end of 2014, this reduction 
reflects an inflection point alongside the commencement of transition, 
scheduled to begin next month.
    Question. Do you agree with the President's decision announced on 
June 22nd regarding the size and pace of reductions in U.S. forces? Why 
or why not?
    Answer. Yes, I agree with the President's decision. Of course, I 
will constantly monitor and assess the situation on the ground and, 
should I determine the situation has changed, I will so advise my chain 
of command through the proper channels.
    It is also important to bear in mind that, even once the surge 
forces are removed, there will still be more than 68,000 U.S. troops 
and thousands of international forces in Afghanistan--not to mention 
the addition of some 70,000 Afghan forces, which will join the fight 
during the next 15 months. At the same time, the international 
community has demonstrated its intention to support Afghanistan until 
at least 2014, and the United States and NATO are both discussing some 
form of long-term partnership relationship with Afghanistan. I believe 
this reality sends an important message of commitment to the Afghan 
people, as well as a sense of urgency that the Afghans must take on 
more responsibility for securing their own country.

                   SECURITY SITUATION IN AFGHANISTAN

    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the insurgency?
    Answer. Based on my understanding of the situation on the ground, I 
believe that the momentum that the insurgency enjoyed for a number of 
years has been halted in most of the country and reversed in many key 
areas. For example, violence is 5 percent lower so far this year in 
comparison to last year, and it is down 40 percent in Regional Command 
Southwest. Obviously, we are facing a very resilient insurgency that 
has demonstrated continued lethal capacity as well as the ability to 
regenerate over time. That said, the ongoing maturation of Afghan 
National Security Forces, combined with the beginning of transition in 
July, should help to further pressure the enemy by degrading support 
networks and further reduce support for the enemy among the Afghan 
population. We and our Afghan partners still face numerous challenges, 
and there will be more tough fighting in the years ahead as we 
transition security to Afghan lead by the end of 2014.
    Question. In your view, what is the impact of the death of Osama 
bin Laden on the security situation in Afghanistan?
    Answer. We do not yet know what effect, if any, bin Laden's death 
will have on enemy operations and morale among insurgents in 
Afghanistan and Pakistan, especially at the operational and tactical 
level. The reality is that we still face very resilient enemies who 
will continue to try to establish safe havens from which they can 
expand their influence and from which they can target the governments, 
forces, and people of Afghanistan, Pakistan, and the forces and 
diplomats of all of the Nations contributing to the mission.

                 TRANSITION OF SECURITY RESPONSIBILITY

    Question. In March, President Karzai announced the first tranche of 
provinces and municipal districts designated for the transition of lead 
responsibility for security to the Afghanistan security forces. The 
transition of security responsibility in these areas is to begin in 
July and be completed by the end of 2011.
    Do you support the process established by NATO and the Government 
of Afghanistan for designating areas for transition of security lead to 
the Afghan Security Forces, including an initial round of transition to 
be completed by the end of 2011?
    Answer. Yes, I believe that the comprehensive, collaborative 
process established to identify areas for transition is working as 
intended. If confirmed, I will look closely at our transition planning 
and implementation and make any changes I believe will increase the 
effectiveness of the process. The first tranche is on schedule to begin 
transition next month, and I support moving forward with the timelines 
that have been established. As the first tranche begins to transition, 
there will likely be lessons learned that can be incorporated into 
future transition planning and implementation.
    Question. What is your assessment of the capacity of the Afghan 
Security Forces to assume the lead for security in the areas designated 
for this initial round of transition?
    Answer. Based on my understanding of the current size and 
capability of Afghan Security Forces, I believe that Afghans are 
prepared to assume the lead for security in the areas designated in the 
first tranche. In some cases, such as Kabul and Panshir, Afghan 
Security Forces are already in the lead and have been for some time.

              BUILDING THE AFGHAN NATIONAL SECURITY FORCES

    Question. There are approximately 100,000 more Afghan soldiers and 
police now than there were in November 2009. The strategy for training 
and equipping the Afghan National Security Forces (ANSF) calls for 
growing the Afghan National Army (ANA) to a level of 171,000 and the 
Afghan National Police (ANP) to a level of 134,000 by October 2011. In 
addition, a new ANSF target end strength has been set of 352,000 by 
2012.
    In your view, are the target end strength levels for the ANA and 
ANP sufficient to provide security and stability in Afghanistan?
    Answer. If the Joint Coordination and Monitoring Board approves the 
352,000 ANSF target end-strength, then I believe the ANA and ANP should 
be capable of achieving the goal outlined at the November 2010 Lisbon 
Summit of Afghans in the lead for security by the end of 2014. However, 
as the NATO Secretary General has stated, the training mission in 
Afghanistan will likely extend beyond our combat mission as part of an 
enduring partnership with Afghanistan.
    Question. What in your view are the greatest challenges to building 
the capacity of the ANSF to assume responsibility for Afghanistan's 
security?
    Answer. Based on my understanding, there are five main challenges 
to building ANSF capacity.
    Leadership: Leader development is one of our top priorities since 
good leadership provides the foundation upon which any organization 
develops and improves. Even though we have significantly expanded 
leadership training and development efforts, there are still 
shortfalls, especially since it takes substantially more time to train, 
educate, and develop leaders. With the growth of the force over the 
last year, the training mission has been able to focus more efforts on 
leader development as well as professionalization across the force.
    Attrition: Attrition within the ANSF continues to be a challenge. 
Through ISAF's partnership with the ANSF at the ministerial and unit 
levels, there has been some success at reducing attrition rates. If 
confirmed, I will ensure that ISAF continues to work with our Afghan 
partners to address this problem and to develop new initiatives to 
reduce ANSF attrition.
    Insider Threat: To safeguard against infiltration and co-option by 
insurgents, the ANSF has developed a multi-layered defense, which 
starts with an eight-step vetting process for all new recruits joining 
the police and army. The addition of Afghan counter-intelligence 
personnel into the formations, as well as additional education and 
training on identifying threats, is intended to minimize this risk.
    Logistics: Logistics and maintenance capabilities are required to 
ensure ANSF can sustain itself over the long-term, which is 
particularly important as Afghans assume more responsibility for 
security. We are working with the Afghan Government to field these 
enabling forces, but developing these specialized skills is complex and 
timeconsuming.
    Literacy: Literacy is the essential enabler for professionalization 
of ANSF, although it is a challenge in a nation with a 15 percent 
literacy rate. Since November 2009, over 100,000 ANSF have completed 
some level of literacy training, and we have increased these efforts 
recently, with some 70,000 ANSF in literacy training on any given day. 
Training is focused on developing the basic ability to read and write 
so that ANSF can, for example, properly account for material, write 
reports, and read pay statements.
    Question. There remains a shortfall in the number of training 
personnel required for the NATO Training Mission Afghanistan (NTM-A), 
in terms of both institutional trainers and embedded training teams, 
the so-called Operational Mentoring and Liaison Teams (OMLTs) and 
Police OMLTs (POMLTs).
    What is your understanding of the current shortfall in NTM-A 
institutional trainers and OMLTs and POMLTs?
    Answer. There is currently a shortfall of 490 NTM-A institutional 
trainers, which is a significant improvement over the last few months. 
Despite additional pledges at the ISAF Force Generation Conference in 
May, we remain short of OMLTs and POMLTS, particularly in Regional 
Commands North, West, and Central. The partnering shortfall within the 
Afghan National Army remains at 10 units (Turkey has offered an 
additional OMLT for 2nd Brigade HQ, 111th Capital Division, which may 
alleviate some of these shortfalls). ISAF Joint Command is examining 
ways to potentially thin partnering relationships with more capable 
army units to mitigate these shortfalls. With the Afghan National 
Police, there is a shortfall of 88 units in Key Terrain Districts and 
Areas of Interest. There is an additional shortfall of 137 POMLTs in 
low priority locations, and we are looking at ways to reduce this 
shortfall using non-military assets.
    Also of note, these shortfalls reflect 305,600 ANSF end strength; 
when the Joint Coordination and Monitoring Board meets later this year, 
it is expected to endorse the growth of the force to 352,000 personnel, 
which may impact the nature, if not the number, of required OMLTs and 
POMLTs. Given the importance of the training mission to the overall 
campaign, filling all of these shortfalls is critical to the long-term 
success of our operations.
    Question. Are there additional steps that you believe could or 
should be taken to get NATO and other coalition partners to provide 
more institutional trainers?
    Answer. Training shortfalls are a longstanding issue best addressed 
by continued engagement with our partners by all elements of the U.S. 
Government--including Congress--as well as by NATO/SHAPE HQ, HQ ISAF, 
and representatives of the NATO training mission. Contributing nations 
who have operational commitments should be encouraged to reinvest any 
combat troop reductions with trainers, especially ones with specialized 
skills such as police, logisticians, medical and maintenance 
specialists. Even as we solicit more trainers, we are also developing 
more Afghan trainers, which allows us to remission coalition trainers.
    Question. Are there additional steps that you believe could or 
should be taken to encourage NATO and other coalition partners to meet 
the requirements for additional OMLTs and POMLTs?
    Answer. As noted above, continuous engagement by all elements of 
the U.S. Government as well as NATO and other relevant organizations 
represents the best chance of generating more OMLT and POMLT pledges.

                 PARTNERING WITH AFGHAN SECURITY FORCES

    Question. A key component of efforts to build the capacity of 
Afghan Security Forces is partnering ANSF units together with ISAF 
units in the field. A recent Department of Defense (DOD) report states 
that field reports suggest that a partnership ratio of greater than 
three ISAF personnel to one ANSF personnel ``reduces the effectiveness 
of the ANSF's participation'' and that ``ANSF are more motivated and, 
hence, more effective when the partnership ratio [between ISAF and ANSF 
personnel] is closer to even.''
    What is your assessment of the effectiveness of partnering for 
building the capacity of the Afghan Army and Afghan police?
    Answer. The process and practice of partnering is critical to 
building the capacity Afghan Security Forces so that Afghans can assume 
the lead for security across the country by the end of 2014. Over the 
past year and a half, we have made significant strides with our 
baseline training. At the same time, we have focused substantially on 
increasing our partnership efforts since this has proven to be the most 
effective way of increasing Afghan capability, confidence, and 
professionalism in the field. In fact, we have seen the most rapid 
improvements in our Afghan counterparts in places where we have higher 
partnering ratios and where our troops live and fight alongside their 
Afghan partners. It is also worth noting that partnering increased our 
own effectiveness since Afghan forces understand the human and cultural 
terrain in ways that we do not.
    Question. Do you believe that the partnering of ISAF and ANSF 
forces can move to a partnership ratio below 1:1 (fewer than 1 ISAF 
soldier for every ANSF soldier) as the capability of Afghan Security 
Forces improves?
    Answer. Yes, that is precisely what we intend to do as we 
transition security responsibility. Over time, we will move from 
partnered operations, to operations with Afghans in the lead with our 
forces in support, to operations where we are in a strategic over-watch 
position. For example, we would help offer advice on planning and 
enabling, but Afghans would carry out the operation by themselves. 
Eventually we plan to move to complete Afghan control. Many units are 
already below a 1:1 partner ratio, and there are increasingly more 
areas where Afghans are in the lead or operating independently. For 
example, Afghans have assumed more responsibility as our forces have 
thinned out in parts of the central Helmand river valley, and Afghan 
forces comprise the majority of forces around Kandahar City. In Kabul 
Province, Afghans lead almost all operations.

                SPECIAL OPERATIONS FORCES IN AFGHANISTAN

    Question. In your view, what is the appropriate role of Special 
Operations Forces (SOF) in Afghanistan, and the proper relationship 
between counterterrorism and counterinsurgency operations there?
    Answer. SOF in Afghanistan are a vital component of our overall 
counterinsurgency strategy, and play many critical roles in our overall 
campaign. Special operations strike forces, supported by intelligence 
and other enablers, are essential for attacking insurgent networks to 
capture or kill insurgent leaders. Special forces teams that are part 
of the Combined Forces Special Operations Command-Afghanistan are 
essential to the support of Village Stability Operations (VSO) and the 
mentoring of the Afghan Local Police (ALP), primarily in smaller 
villages and rural areas. The multinational special forces teams in the 
ISAF SOF provide essential training and partnering to Afghan 
specialized Provincial Response Companies to facilitate targeted 
missions against insurgent, drug trafficking, and other networks. Each 
of these elements also partners with, trains, and assists the Afghan 
units with which they are working--a critical component of increasing 
Afghan capabilities. All SOF coordinate closely with the conventional 
force battle space owner in the region in which they operate so that 
special operations missions complement conventional force operations to 
achieve the overall counterinsurgency effect. Counterterrorism 
operations are an important component of any comprehensive civil-
military counterinsurgency campaign.
    Question. As U.S. forces are drawn down in Afghanistan, do you 
anticipate the requirement for SOF will be reduced, stay the same, or 
increase?
    Answer. Although the exact future requirements for SOF are yet to 
be determined, they will clearly play a prominent role in the future.

            AFGHAN LOCAL POLICE/VILLAGE STABILITY OPERATIONS

    Question. General Petraeus and others have emphasized the 
importance of the VSOs and ALP programs to the strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. The ALP program and VSO have had a measurable and positive 
effect on security in Afghanistan. Since the program's inception in 
August 2010, ALP has grown to over 6,500 patrolmen operating at 41 
validated sites. These units provide a measure of security where ISAF 
forces are scarce or non-existent, and build connections between the 
village, the province, and the central government. Additionally, the 
program appears to have jump-started local governance and also 
mobilized communities, a key condition for local populations to resist 
Taliban influence. Because this program has been so effective in 
denying terrain to the Taliban, the enemy has explicitly targeted it 
(although it appears that ALP members have fought off Taliban attacks 
in a number of recent incidents). Nonetheless, the ALP program and VSO 
continue to grow, and Afghans across the country are eager for the 
program to come to their area.
    Question. Do you believe the availability of U.S. Special 
Operations teams is a limiting factor in expanding these programs to a 
point where they can have a strategic impact in Afghanistan?
    Answer. The number of ALP and VSO sites that we can establish in 
Afghanistan is limited by the availability of Operational Detachment 
Alpha (ODA) teams, but we have developed an innovative solution that 
allows us to continue to expand the programs without additional teams. 
We have begun integrating conventional forces with our special forces, 
which, after a period of specialized training, are able to thicken the 
ODAs and free up more special forces personnel for new ALP/VSO 
missions. We expect that this will allow us to continue to increase the 
ALP program, even as the number of ODAs in Afghanistan remains fairly 
constant.
    Question. How do indirect approaches like VSO and ALP Programs 
complement direct action counterterrorism missions within the U.S. 
strategy in Afghanistan?
    Answer. The ALP and VSO programs are part of the comprehensive 
civil-military counterinsurgency strategy and, as such, they complement 
other efforts--both kinetic and non-kinetic--to protect the population, 
to degrade the insurgency, and to build sustainable, effective 
governance in Afghanistan. By giving local villagers a stake in their 
own security, the ALP program builds cooperation and support for the 
district, provincial and central government, which, in turn, makes the 
environment inhospitable to the Taliban and other insurgent groups. The 
local security and improved governance that the ALP and VSO programs 
bring also increase local Afghans' confidence, which sets the 
conditions for development and grassroots community organizing, 
grievance resolution, and communal problem-solving. All of these 
activities complement the other elements of the comprehensive 
counterinsurgency strategy, which includes direct-action 
counterterrorism missions.

                SPECIAL OPERATIONS ENABLING CAPABILITIES

    Question. The Commander of U.S. Special Operations Command has 
described the ``non-availability'' of force enablers as the ``most 
vexing issue in the operational environment'' for SOF. In many 
instances, SOF rely on general purpose forces to provide the enabling 
capabilities they need to be successful in their missions, including 
rotary wing airlift, medical evacuation, intelligence, surveillance, 
and reconnaissance capabilities.
    What do you believe are the greatest shortages in enabling 
capabilities facing our forces in Afghanistan?
    Answer. Given the decentralized manner in which SOF are dispersed 
in austere, remote areas--especially those forces conducting VSO and 
training ALP--the greatest enabling shortage is air asset support, both 
rotary and fixed wing. Although substantial progress has been made with 
increasing the number of air assets in theater over the last 2 years, 
meeting the requirement for these assets will be critical as the number 
of VSO and ALP sites increase, since this will mean that more small 
units are fielded in rural areas. Related, these teams also have an 
increased requirement for Intelligence, Surveillance and Reconnaissance 
platforms equipped with signals intelligence and full-motion video 
capabilities. The intelligence analysts, and associated systems, are 
also necessary to properly exploit the data collected. Additionally, 
units in rural areas often need dedicated Route Clearance Packages to 
support ground movement, to conduct ground combat operations, and to 
maintain freedom of movement.
    Question. If confirmed, how would you ensure the requirements for 
enabling capabilities of SOF in Afghanistan are met as general purpose 
forces are drawn down?
    Answer. Based on lessons from the drawdown in Iraq, I expect 
requirements for special operations enablers to increase as the 
conventional force footprint is reduced in Afghanistan. Requirements 
will continue to evolve as we adapt to the new force posture, but my 
top priority will be to ensure full connectivity to our teams, 
especially when it comes to maintaining the ``Golden Hour'' for medical 
evacuation. Additionally, I will ensure that we have sufficient air 
assets, including Intelligence, Surveillance, and Reconnaissance and 
close-air support platforms as well as Route Clearance Packages.

                       INTERAGENCY COLLABORATION

    Question. The collaboration between U.S. SOF, general purpose 
forces, and other U.S. Government departments and agencies has played a 
significant role in the success of counterinsurgency and 
counterterrorism operations in recent years. However, much of this 
collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan?
    Answer. One of the most important lessons learned over the past few 
years is the necessity of a whole-of-government approach to be 
successful in campaigns such as that in Afghanistan. After all, the 
complexity of these missions requires experts from many fields and 
backgrounds to conduct an effective comprehensive civil-military 
campaign. Keeping all the actors on the same page, and communicating 
closely at all levels, has perhaps been a central factor in achieving a 
unified approach to our campaign plan. In particular, the close 
collaboration between the State and Defense Departments--from action 
officers to senior leaders--supports a unity of effort that has enabled 
progress in Afghanistan.
    Question. How do you believe these efforts can be improved?
    Answer. Although there has been substantial progress improving 
interagency and international coordination and collaboration, there is 
still room to improve in areas such as our collective understanding of 
roles and responsibilities and the manner in which they fit into the 
overall campaign plan. Essential to this is to maintain an open line of 
communication and frequent coordinated action between and among all the 
various actors--including the U.S. Embassy, NATO's Senior Civilian 
Representative, the United Nations, and nongovernmental organizations--
to increase efficiencies, reduce redundancies, eliminate waste, and 
seek areas where cooperation could lead to results greater than the sum 
of the whole.

              INTELLIGENCE SUPPORT FOR INDIRECT ACTIVITIES

    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department in 
Afghanistan on special operators engaged in direct action operations. 
As a consequence, it is alleged, general purpose forces and SOF engaged 
in indirect activities, including foreign internal defense and 
population protection, receive less intelligence support.
    Do you believe this is true?
    Answer. I believe this is a misperception since the national 
intelligence agencies are integrated into command processes throughout 
USFOR-A and ISAF. For example, Cryptologic Support Teams from the 
National Security Agency are spread across the theater down to the 
brigade level. Several hundred all-source analysts and specialty units 
from the Defense Intelligence Agency are located at every Regional 
Command (even the non-U.S. commands) and in conventional units 
executing VSO. There are also over 100 geospatial analysts and 
specialists from the National Geospatial Agency support units 
throughout Afghanistan. In every case, these professionals bring 
expertise and reach-back capabilities for all types of forces and have 
been an integral part of enabling the intelligence fusion that has 
contributed to our success.
    With regard to the belief that some Special Operation Forces (SOF) 
are less supported than direct action SOF, this perception may arise 
from the operational reality of SOF elements that are supporting 
foreign internal defense, VSO, and the ALP. While most SOF forces 
engaged in direct action operate from fixed bases--with extensive 
communications, robust staff, and assigned national agency analysts--
SOF elements engaged in indirect activities are normally deployed in 
small teams to remote locations. These teams do not have large staffs 
and the support they do receive from headquarters elements is less 
direct, and, therefore, less obvious to many observers.
    Question. If so, and if confirmed, how would you ensure SOF engaged 
in indirect activities receive adequate intelligence support?
    Answer. If confirmed, I will seek to maintain the strong 
relationship between COMISAF and intelligence organizations' leadership 
to ensure intelligence products are available to all of our forces and 
are concentrated to support the main effort. I will also continue to 
partner with National Intelligence Agencies to ensure our requirements 
are focused and clearly understood. Finally, I will continue requesting 
the Intelligence Community's assistance in producing ``tear-line'' 
products to allow near-real-time and broad dissemination to all members 
and units of ISAF, as well as our Afghan partners.

          CONTRACT OVERSIGHT AND PRIVATE SECURITY CONTRACTORS

    Question. The United States has implemented a number of efforts to 
reduce the risk that U.S. contracting practices will be subject to 
corruption, which helps fuel the insurgency and undermines the 
legitimacy of the Afghan Government. These efforts include the 
establishment of the Combined Joint Interagency Task Force-Shafafiyat 
(Transparency) to coordinate ISAF anti-corruption activities.
    What is your assessment of ISAF's anti-corruption efforts and 
understanding of criminal patronage networks, and what additional 
steps, if any, do you believe should be taken to improve those efforts 
and to ensure adequate oversight of ISAF and U.S. contracts is in 
place?
    Answer. ISAF and its partners in the Afghan Government and key 
embassies have together developed a common understanding of the problem 
of corruption and its effect on the ISAF mission and the viability of 
the Afghan state. The most dangerous forms of corruption involve 
criminal patronage networks, which divert development and security 
force assistance, subvert state institutions, obstruct justice, and 
engage in and protect illicit activities that strengthen the insurgency 
and undermine the effectiveness and legitimacy of the government.
    The establishment of Combined Joint Interagency Task Force 
Shafafiyat (Transparency) has led to a better understanding of these 
problems as well as important initiatives to address them. As a result 
of Shafafiyat's work, ISAF developed and implemented Counterinsurgency 
Contracting Guidance, which has helped ISAF and the international 
community be better buyers, and buy from legitimate suppliers. As a 
result of improved vendor-vetting efforts and integration of 
procurement and contracting into intelligence and operations at all 
levels, 75 U.S., international, and Afghan individuals or companies 
have been debarred from receiving contracts, 24 individuals and 
companies have been suspended, and 27 debarment actions are pending. 
Additionally, ISAF has supported the training of specialized Afghan 
anti-corruption units to develop sustainable Afghan capacity to address 
corruption.
    Given the complexity of this problem, more work can be done. In 
particular, based on what I know, there is still a need to develop 
comprehensive U.S. and coalition vendor-vetting and contract oversight 
procedures. ISAF is currently consolidating over two dozen contracting 
databases; USFOR-A and the CENTCOM Contracting Command are coordinating 
to implement a new, more rigorous vendor-vetting process; and ISAF has 
submitted a proposal to the Office of the Secretary of Defense for the 
establishment of the Acquisition Accountability Office-Afghanistan, 
which would provide oversight for all U.S. contracts in the country. If 
confirmed, I will examine these efforts to determine if they are on 
track and if anything else needs to be done.
    Question. President Karzai has issued a decree calling for the 
disbandment of most private security contractors (PSCs). Following that 
decree, the international community negotiated a temporary arrangement 
to allow for the continued use of PSCs for 1 year while the capacity of 
a Ministry of Interior guard force, called the Afghan Public Protection 
Force (APPF), is developed.
    What is your assessment of the potential for the APPF to replace or 
supplement PSCs in providing security?
    Answer. The APPF currently provides approximately 6,000 guards for 
various clients throughout Afghanistan, with plans to expand 
significantly to replace PSCs. I support the Afghan Government's 
decision to eliminate PSCs and, if confirmed, intend to support the 
further development of the APPF. The most significant challenge is the 
short timeframe in which the APPF needs to increase in size and 
capability so that it can accomplish its mission. Efforts are underway 
to this end, including newly expanded APPF headquarters and the 
construction of a training center for guards. In short, the potential 
exists for the APPF to replace PSCs on time, although it will require 
significant work over the next year. Currently, joint ISAF-Afghan 
assessments of the APPF--which is part of the bridging strategy--are 
scheduled for September 2011, December 2011, and March 2012.
    Question. If confirmed, what steps, if any, would you recommend to 
improve the development and oversight of the APPF?
    Answer. If confirmed, I will look closely at APPF to determine what 
steps might be necessary to improve development and oversight. Based on 
what I know, I believe that we should focus on two parallel lines of 
effort. First, we should support the development of command, control, 
and management functions within the existing APPF, which is similar to 
developing any police or military headquarters to perform a specific 
security missions. Second, we should support the development of a 
state-owned enterprise, which will support the APPF as it strives to 
provide security services in a manner similar to those of commercial 
security companies.

                    REINTEGRATION AND RECONCILIATION

    Question. The Afghanistan Peace and Reconciliation Program (APRP) 
has been established to enable former insurgent fighters to renounce 
violence and reintegrate peacefully into their communities. As of mid-
June more than 1,700 former fighters had enrolled in the APRP, and the 
Afghan Government reported that it was in negotiations with more than 
40 additional groups representing up to 2,000 more fighters. The APRP 
has been criticized, however, as involving only a small fraction of the 
Taliban insurgents.
    What is your assessment of the Afghanistan Peace and Reintegration 
Program and the program's potential for reintegrating further numbers 
of low- to mid-level insurgent fighters?
    Answer. The Afghan Peace and Reintegration Program (APRP) is an 
essential component of our comprehensive, civil-military 
counterinsurgency campaign, one that convinces insurgents to join the 
peace process, accept the Afghan constitution, renounce violence, and 
rejoin Afghan society. It is a viable alternative to continued fighting 
or detention. Since the APRP began in August 2010, over 1,850 former 
insurgents have officially reintegrated--double the number from a few 
months ago--and at least another 2,000 are in some stage in the 
reintegration process. All 34 provinces now have Provincial Peace 
Committees, and a number of provinces have fully-functioning Provincial 
Reintegration Accounts, which give the Provincial Peace Committee 
resources to disburse in support of reintegration at the local level.
    The greatest factor affecting reintegration, however, is not the 
number of functioning committees or the presence of reintegration 
accounts (though those are essential for the program's successful 
operation). Rather, it is the insurgency's declining resources, low 
morale, and poor leadership--all of which convince insurgents to 
abandon the fight and rejoin Afghan society. We are seeing some signs 
that these factors are encouraging informal reintegration (where 
insurgents do not enter the reintegration process, but simply return to 
their homes). As we continue to pressure insurgents on all fronts, we 
anticipate that we will see increased numbers of formal reintegrees as 
well. But where we can, we will encourage informal reintegrees to join 
the peace process by joining formal reintegration.
    Question. It has been reported that coalition officials and Taliban 
representatives have engaged in preliminary talks on reconciliation.
    Do you support the beginning of reconciliation talks with the 
Taliban at this time?
    Answer. Historically, ending an insurgency requires some sort of 
political settlement. At the same time, I recognize that any solution 
to the fighting in Afghanistan must be led by the Afghan Government if 
it is to be effective and enduring. For that reason, I fully support 
Afghan-led reconciliation efforts and support the overall concept as it 
has been articulated by the Secretary of State.
    ammonium nitrate for improvised explosive devices from pakistan
    Question. Ammonium nitrate (AN), a prime component in improvised 
explosive devices (IEDs) that have killed or wounded thousands of U.S., 
coalition, and Afghan troops and Afghan civilians, continues to flow 
into Afghanistan. The vast majority of this AN flows in from fertilizer 
factories in Pakistan. In 2010, in an effort to stem the flow of this 
material, the Afghan Government banned the use of AN as a fertilizer. 
Despite this effort and vigilance by Afghan National Security Forces 
(ANSF), IED incidents and casualties have continued. The amounts of AN 
reportedly ferried into Afghanistan from Pakistan are staggering.
    In light of your recent position at CENTCOM, what is your 
understanding of the situation regarding the flow of AN into 
Afghanistan?
    Answer. We assess that a large amount of the AN used in IEDs in 
Afghanistan originates in Pakistan, where it is manufactured as a 
fertilizer called calcium ammonium nitrate (CAN). There are no 
regulatory controls to adequately control the sale and distribution of 
CAN in Pakistan, which, combined with the porous border between 
Afghanistan and Pakistan, allows insurgents to procure and move large 
amounts of CAN into Afghanistan. Although Afghan and ISAF forces have 
made considerable progress in interdicting shipments of CAN in 
Afghanistan and along the border since President Karzai banned it in 
early 2010, it will take a concerted, international effort with the 
Pakistani government and Pakistani industry in order to better 
regulate, track, and interdict CAN. The Pakistanis took a significant 
step forward recently with their release of national counter-IED 
strategy and the issue is being addressed with the Pakistani government 
on multiple levels within the U.S. Government.
    Question. If confirmed as Commander, NATO ISAF/Commander, USFOR-A, 
what tools would you have at your disposal to address the flow of AN 
into Afghanistan and are there any additional tools that you would seek 
to have?
    Answer. There are a variety of current tools at our disposal, and, 
if confirmed, I would closely examine what other resources, 
technologies, and initiatives could be brought to bear to reduce the 
flow of AN into Afghanistan. Currently, there are several border 
initiatives to address AN, and AN interdiction has increased 
significantly over the last year, aided by forces on the border and 
increased intelligence, surveillance, and reconnaissance assets. 
However, due to the porous nature of the border, there also need to be 
efforts to address the flow of AN at its source: the factories in 
Pakistan that produce AN. This would require diplomatic resources--
including continuing to work closely with the U.S. Embassy in 
Islamabad--to facilitate an agreement between the Governments of 
Pakistan, Afghanistan, and perhaps the United States to either 
transition to a fertilizer that cannot be used for IEDs or, possibly, 
to dye the AN to identify which factories are producing AN used in 
IEDs. If confirmed, I would engage senior Pakistani military officials 
on this issue and would also work closely with interagency and 
international partners to reduce the flow of AN and other IED 
components.

                           AFGHAN OPIUM TRADE

    Question. According to the United Nations Office of Drugs and Crime 
2010 Annual Report--released in June 2010, drugs from Afghanistan have 
an annual market value of $65 billion, cater to 15 million drug users, 
cause 100,000 deaths each year, are contributing to the spread of HIV 
at an unprecedented rate, and are a source of funds for criminal 
groups, insurgents and terrorists. Moreover, since 2006, much more 
opium has been produced in Afghanistan than is consumed worldwide, and 
the resulting stockpile is now large enough to meet 2 years' worth of 
world heroin demand.
    As it relates to the drug trade in Afghanistan, what is your 
understanding of the role of the Commander of ISAF and Commander of 
USFOR-A respectively?
    Answer. The Commander of ISAF operates under NATO mandate, which 
precludes forces under ISAF command from conducting operations 
specifically directed against narcotics organizations. However, NATO 
forces can conduct nexus operations, which are operations against 
narco-groups with direct linkages to the insurgency.
    The Commander of USFOR-A operates under direction of U.S. policy. 
Selected U.S. units and organizations that are under the command of 
USFOR-A, such as Combined Joint Task Force-Nexus, can conduct 
operations that target the drug trade specifically.
    Question. What is your understanding of the rules of engagement for 
U.S. forces as it relates to drug labs and the drug network 
respectively?
    Answer. ISAF's mandate prevents the Alliance from participating in 
operations that are exclusively focused on counter-narcotics, although 
NATO forces can conduct nexus operations against narco-groups with 
direct linkages to the insurgency. U.S. forces under the ISAF command 
structure can participate in counternarcotics operations only when 
there is a connection between narcotics and the insurgency. Of course, 
it should also be noted that our forces always retain the right to 
defend themselves when they are facing an imminent threat.
    Question. What is your understanding of the nexus--if any--between 
the drug trade and the various insurgent groups in Afghanistan?
    Answer. The illegal narcotics industry is intrinsically linked to 
the insurgency, corrupt actors, and criminal patronage networks. There 
is no clear line separating any of these groups since their operations 
and support networks overlap and are intertwined at a fundamental 
level.
    Question. How significant a source of funding is the drug trade for 
insurgent groups in Afghanistan?
    Answer. While estimates vary, a significant percentage of the 
illegal drug trade funds the insurgency, and we assess that the illegal 
drug trade is the largest internal source of funding for the Afghan 
Taliban.
    Question. What is your understanding of the role of the Drug 
Enforcement Agency and comparable NATO law enforcement efforts in 
Afghanistan?
    Answer. The Drug Enforcement Agency, the Department of Homeland 
Security, Customs and Borders Patrol, the Bureau of International 
Narcotics and Law Enforcement Affairs, the U.S. Marshalls, the Serious 
Organized Crime Agency (UK), and other organizations all work closely 
with the Afghan Government and the international community to improve 
and reform the Afghan criminal justice system and to strengthen Afghan 
law-enforcement capacity. All of these groups bring unique skill sets 
required to address challenges posed by the drug trade and to help the 
Afghan Government develop long-term solutions.
    Question. As Commander of ISAF and Commander of USFOR-A, 
respectively, what would be your relationship to these law enforcement 
activities?
    Answer. To ensure unity of effort, ISAF/USFOR-A will continue to 
synchronize its efforts with civilian law enforcement partners in the 
areas of capacity-building, public awareness, disrupting illicit 
precursor chemicals, and combating nexus organizations. As with other 
efforts, the key to this is close communication and coordination so 
that we are all working toward the same goal and focused on our 
campaign plan.

                 COUNTERNARCOTICS POLICE OF AFGHANISTAN

    Question. In each of the past 3 fiscal years, DOD has expended 
approximately $450 million building the capacity of the 
Counternarcotics Police of Afghanistan (CNPA).
    What is your current assessment of the CNPA?
    Answer. The CNPA have dramatically improved over time. In Helmand 
Province, which accounts for approximately 40 percent of the world's 
illicit opium production, the CNPA have provided expertise to help 
investigate narcotics trafficking in support of the Provincial 
Governor's counternarcotics campaign (contributing to a 94 percent 
conviction rate in 2010). In May 2011 alone, the CNPA helped seize 
12,000 kg of narcotics around the country.
    Despite this progress, more work remains to be done. For example, 
the CNPA lacks sufficient manpower to effectively enforce counter-
narcotics laws across the entire nation. It also needs to improve 
institutional capabilities such as strategic planning, budget 
formation, and logistics to reduce its reliance on other agencies, such 
as the Ministries of Interior and Defense.
    Question. As the Commander, NATO ISAF/Commander, USFOR-A, what 
would be your relationship to the CNPA?
    Answer. Currently, NTM-A/CSTC-A has a mentoring relationship with 
the CNPA to support its development. As Commander ISAF/USFOR-A, if 
confirmed, I would oversee this mentoring relationship.
    Question. Are you satisfied with the arrangement?
    Answer. Yes.

            COUNTER-THREAT FINANCE ACTIVITIES IN AFGHANISTAN

    Question. In 2008, the United States created the Afghanistan Threat 
Finance Cell (ATFC) to disrupt the flow of funding from the Afghan 
opium trade and other illicit sources to the Taliban, al Qaeda, and 
other terrorist and insurgent groups in Afghanistan. The ATFC and 
related organizations have helped Afghan authorities investigate and 
prosecute individuals connected to the opium trade, identify outside 
sympathizers who have been supplying funding to those individuals, and 
police a variety of corrupt schemes that have filled the coffers of the 
Taliban-led insurgency and other illicit actors. The ATFC has also 
helped U.S. forces identify and target individuals associated with IED 
networks operating in Afghanistan.
    What is your assessment of the operations of the ATFC?
    Answer. The ATFC is a unique interagency, civilian-military 
organization that provides a variety of products, services, and support 
for military units and civilian agencies. These include target packages 
that support Joint Prioritization Effects List (JPEL) nominations for 
military commands; Drug Kingpin and Terrorist Designations; district-
by-district assessments of insurgent finances used by military planners 
to identify targets; threat finance risk assessments for U.S. 
development projects and contracting; and training and mentoring of 
specialized Afghan investigative organizations. The ATFC provides 
support to a large number of United States agencies, coalition 
partners, and the Afghan Government. Given the imperative to staunch 
the illicit financial activities that fuel the insurgency, as well as 
the criminal patronage networks that undermine the government, the work 
of the ATFC plays a vital role supporting many elements of our overall 
strategy.
    Question. Some have argued that tracking and targeting the 
financial sources of insurgent networks is a waste of scarce 
intelligence resources.
    What is your view of counter-threat finance activities, 
particularly as it relates to Afghanistan?
    Answer. Given the nexus of the insurgency, illegal narcotics 
networks, and criminal organizations, counter-threat finance activities 
are vital to our overall effort to degrade the insurgency while 
simultaneously supporting the development of an effective Afghan 
Government. As noted above, counter-threat finance activities involve 
more than just the tracking of financial sources, and, in fact, lead to 
intelligence and knowledge that is directly actionable. Additionally, 
these activities inform military planners as they are developing 
operational plans and allocating resources. Overall, counter-threat 
finance activities contribute significantly to multiple elements of the 
broader campaign.

       GENERAL PURPOSE FORCES USED FOR SECURITY FORCE ASSISTANCE

    Question. Building the security forces of foreign nations has 
traditionally been a SOF mission. However, in both Iraq and 
Afghanistan, general purpose forces have been performing this mission 
for some time.
    What is your understanding and assessment of the preparation and 
performance of Army and Marine Corps general purpose forces operating 
in Afghanistan in a security force assistance role?
    Answer. The Armed Forces of the United States have now been 
involved in counterinsurgency missions for nearly a decade, during 
which time they have had extensive experience with security force 
assistance. We have learned numerous lessons during this time, 
incorporated them into our training and education systems, and used 
past experience to prepare soldiers, marines, and others for the 
complex nature of these conflicts, to include security force 
assistance. Having seen our forces in action, my assessment is that 
they have performed very well in this role and have, in fact, surpassed 
all expectations.
    Question. How do you envision the use of general purpose forces in 
the security force assistance role, if at all, as U.S. forces begin to 
drawdown between 2011 and 2014?
    Answer. General purpose forces will continue to be used in a 
security force assistance role, helping to develop the ANSF as Afghans 
increasingly take the lead for security throughout Afghanistan.

              SUPPORT THE MISSION WITH OPERATIONAL ENERGY

    Question. On June 7, 2011, General Petraeus signed and issued a 
memorandum for U.S. Forces-Afghanistan providing command guidance on 
supporting the mission with operational energy. In the memorandum 
General Petraeus stated his expectation that commanders will take 
ownership of unit fuel demand and announced the standing up of an 
office to improve operational energy capabilities by changing how 
Coalition forces use energy. The memorandum also called on commanders 
to make energy-informed, risk-based decisions on aviation and vehicle 
operations, base camp design, power and water generation and 
distribution. General Petraeus also called for energy considerations to 
be included in requirements and oversight of contracts.
    Do you concur with General Petraeus' command guidance and his 
efforts to date?
    Answer. Yes, since our forces are more dependent on energy than 
ever before, this guidance recognizes the importance of managing that 
risk by reducing our energy consumption. Moreover, reducing our 
environmental footprint is also important in our efforts to be good, 
environmentally-conscious guests of the Afghan people.
    Question. If confirmed, to what extent will you continue to support 
the mission of U.S. Forces-Afghanistan with operational energy or issue 
similar command guidance?
    Answer. If confirmed, I will continue to emphasize this issue and 
will issue similar guidance.

                            WOMEN IN COMBAT

    Question. What restrictions, if any, do you believe should be 
imposed with respect to the assignment of combat-related duties to 
women in uniform, or the assignment of women to combat units?
    Answer. If confirmed, I will adhere to the current policies in 
place regarding combat-related duties for women in uniform. That said, 
I understand that, at the direction of Congress, the Department is in 
the process of reviewing current policies. If they change, I will 
ensure that all forces under my command follow the new rules and 
guidelines and I will work with all the relevant parties to make sure 
potential changes are instituted with as little disruption as possible. 
Obviously, women in uniform make tremendous contributions every day on 
the battlefield, and, due to the nature of the conflict in Afghanistan, 
many women have been engaged in combat and have performed courageously. 
Some have been wounded, and indeed, some have been killed. I honor 
their sacrifice.

                          HEALTH OF THE FORCE

    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care in theater to deal with this increased 
stress. Increased suicide rates are clear reminders that 
servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    What is your assessment of the adequacy of health care and mental 
health capabilities supporting servicemembers in Afghanistan?
    Answer. With over 9,000 health-care personnel in Afghanistan, 
representing most medical specialties, I believe that our forces have 
access to excellent health-care facilities and professionals. This is 
particularly true with our emergency health-care capabilities. Rates of 
U.S. forces killed in action and those dying from wounds have declined 
since 2009, despite an increase in number of personnel at risk. More 
troops are surviving devastating wounds as a result of increased 
medical aviation platforms, more field hospitals, and efforts like our 
``flying intensive care unit,'' in which wounded forces are transported 
to Landstuhl, Germany, often within hours of injury.
    Based on what I know, I likewise assess our mental-health 
capabilities as robust. There has been a significant increase in the 
number of behavioral health-care personnel in theater in the last 2 
years, as well as in the number of restoration and reconditioning 
centers for those with behavioral and mental-health problems. A new 
mental health telemedicine network has also been established, allowing 
direct communication with mental health-teams by troops based even in 
remote regions. Currently, there are 34 active telemedicine portals in 
operation, with an additional 42 planned. Also of note, the first 
theater-wide behavioral health and neurology care conference took place 
this month, which allowed mental-health experts to discuss best 
practices and lessons learned. Additionally, all efforts in theater 
have been bolstered by the Defense Department's focus on this area, and 
significant improvements in pre- and post-deployment assessments and 
support. If confirmed, I will continue to ensure that our forces have 
access to the mental health care that they need.
    Question. What is your assessment of suicide prevention programs 
and resources available to support these programs in Afghanistan?
    Answer. Suicide is obviously a huge concern for all commanders, and 
the military has made significant strides to address worrisome trends. 
In late 2009, The Suicide Prevention Task Force reviewed more than 300 
programs, culminating in a report of best practices that have been 
incorporated throughout the force. In addition to multiple direct care 
programs, the Army is managing 13 suicide prevention research projects.
    The military suicide prevention program currently spans the pre-
deployment, deployment, and post-deployment phases, with each Service 
having tailored programs for their members. All members are exposed to 
specific prevention and resiliency training, much of this through the 
Religious Support Teams in theater and through programs such as ``Ask, 
Care, Escort'' and ``Applied Suicide Intervention Skills Training.'' 
More than 32,000 additional servicemembers have received the suicide 
awareness training so far this year, and over 900 have been trained to 
act as ``gatekeepers.''
    Overall, I assess that we are actively addressing this problem with 
adequate resources. If confirmed, I will continue to make this a 
priority within the command.
    Question. What is your assessment of the implementation of DOD 
policy on management of mild traumatic brain injury throughout 
Afghanistan?
    Answer. This is obviously another area of concern since these types 
of injuries have been so prevalent in these conflicts. Under current 
guidance, medics and forward physicians in theater use straightforward 
flow charts on laminated cards to determine who needs to rest and who 
needs to be referred to higher levels of care. This process appears to 
be working, with neurologists at the centers for higher levels of care 
indicating that the patients they see have been appropriately dealt 
with according to the clinical guidelines. As a result, these forward 
centers have achieved a 95-99 percent return-to-duty rate without the 
need for advanced intervention. The 1-5 percent that do not recover 
using these guidelines are referred to the two major concussion/
traumatic brain injury specialty care centers, where specialists are 
able to diagnose and treat more advanced injuries. Overall, I assess 
that Defense Department policy is being followed in Afghanistan, with 
good effect.
    Question. What is your assessment of medical evacuation 
capabilities in theater today?
    Answer. I assess that medical evacuation capabilities in theater 
today are excellent, with the overall system performance continuing to 
improve. In 2009, the average time for urgent missions was 62 minutes; 
in 2010 it was 47 minutes; and, so far this year, it is 42 minutes. 
There are currently sufficient aircraft and crews in theater to 
continue to outperform the 60 minute ``golden hour'' standard through 
2011.
    Question. If confirmed, what standard would you establish for 
capability and availability of medical evacuation assets, including for 
forward operating units?
    Answer. It is absolutely essential that we sustain the same high 
standard of medical evacuation performance and reliability to ensure 
that our forces have the support they need, especially in the critical 
summer fighting season. We have sufficient medical evacuation assets in 
theater to allow 24/7 coverage of the main battle space and the ability 
to forward position medical evacuation assets for deliberate operations 
outside the normal coverage rings. If confirmed, I will maintain these 
standards and continue to look for ways to improve this vital mission.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
incidents of sexual misconduct involving military personnel in 
Afghanistan are still being reported. Victims and their advocates claim 
that they are victimized twice: first by attackers in their own ranks 
and then by unresponsive or inadequate treatment for the victim. They 
assert that their command fails to respond appropriately with basic 
medical services and with an adequate investigation of their charges 
followed by a failure to hold assailants accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on restricted reporting, to be effective?
    Answer. Yes, I believe that the current sexual assault policies and 
procedures are effective. DOD believes its first priority is for 
victims to be protected, treated with dignity and respect, and to 
receive the medical treatment, care, and counseling that they deserve.
    A restricted reporting option is available for victims who wish to 
confidentially disclose incidents so that they can receive medical 
treatment and counseling without triggering the official investigative 
process. Servicemembers who are sexually assaulted and desire 
restricted reporting under this policy must report the assault to a 
Sexual Assault Response Coordinator (SARC), a Victim Advocate, a 
health-care provider, or a chaplain. Health-care providers will 
initiate the appropriate care and treatment, and report the sexual 
assault to the SARC in lieu of reporting the assault to law enforcement 
or the command. The goal of the restricted-reporting option is to 
encourage victims to come forward and receive help.
    Question. What problems, if any, are you aware of in the manner in 
which restricted reporting procedure has been put into operation?
    Answer. Although I do not know the exact details, I understand that 
there was an issue when victims were flown via medical evacuation to 
other medical facilities where their identity and situation were 
unintentionally made known. This issue has been corrected, with the 
reason for a medical evacuation now listed as ``internal wounds'' 
versus ``sexual assault trauma''. This change protects and ensures the 
sexual-assault case remains restrictive.
    Question. What is your view of the steps taken to prevent and 
respond to sexual assaults in Afghanistan, including assaults against 
contractor personnel?
    Answer. There are robust policies and procedures in place to 
prevent and to respond to sexual assaults. Our medical personnel, 
military police, and SARC support all personnel, including contractors.
    Question. What is your view of the adequacy of the training and 
resources in place in Afghanistan to investigate and respond to 
allegations of sexual assault?
    Answer. We currently have adequate training, resources, and 
investigators to respond to sexual assaults. One area of concern, 
however, is that some medical providers are not trained and/or 
certified before arriving in theater to conduct sexual-assault forensic 
examinations. This weakness was identified during a recent sexual 
assault assessment, and, as a result, medical providers will be 
required to receive adequate training and/or certification prior to 
deployment.
    Question. What is your view of the willingness and ability of 
military leaders to hold assailants accountable for their acts?
    Answer. I expect everyone under my command to hold assailants 
accountable, and, if confirmed, I will explicitly tell subordinates at 
all levels that sexual assault prevention is a command issue and I 
expect and require their personal commander's attention.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults in Afghanistan?
    Answer. Sexual assault prevention is a command issue, and if 
confirmed, I will tell my senior leaders that this is a priority for me 
and that I expect them to respond to incidents in a timely manner with 
appropriate medical services, to conduct thorough investigations, and 
to hold assailants accountable. My program managers will be tasked to 
provide the proper education and training on sexual assault prevention 
and reporting procedures to all personnel.

                  STANDARDS FOR TREATMENT OF DETAINEES

    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces in Afghanistan fully comply with the requirements of 
section 1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. Leadership starts at the top, and, if confirmed, I will 
personally ensure that the troops under my command understand my 
expectations and the clear standards under which we operate. I will 
provide clear guidance at every level of command, proper training, and 
ensure prompt and effective action is taken if there is a situation 
where we fail to meet our own high standards. Additionally, if 
confirmed, I will ensure that we continue to undertake thorough 
inspections of all detention facilities and related programs throughout 
Afghanistan and also that we continue to cooperate with the 
International Committee of the Red Cross. Our country must always live 
our values, and nowhere is that more true than how we treat detainees.

                  DETENTION OPERATIONS IN AFGHANISTAN

    Question. In the past several years, significant changes have been 
made in the way detention operations have been conducted in a 
counterinsurgency environment. In Afghanistan, Combined Joint 
Interagency Task Force 435 is responsible for overseeing detention 
operations, with the goal of responsibly transitioning detention 
operations to the Government of Afghanistan.
    In your view, what are the main lessons learned over the last 
several years regarding the conduct of detention operations within a 
counterinsurgency environment?
    Answer. Detention operations are an integral part of any 
counterinsurgency campaign, and our experiences over the past few years 
have taught us many valuable lessons. Perhaps chief among them is that 
detention operations have to be conducted in the most humane manner 
possible, since our treatment of detainees directly reflects our values 
as a nation and, as a result, can have strategic effects. We have also 
learned that we have to conduct counterinsurgency ``inside the wire'', 
since detained individuals have the potential not only to be sources of 
intelligence, but also to be part of the solution if they can be 
effectively reintegrated into society. At the Detention Facility in 
Parwan, for example, we have initiated various programs to teach 
detainees job skills that range from agriculture to tailoring. 
Additionally, we have established a robust Detainee Review Board 
process and are conducting ``release shuras'' in which communities come 
together to support individuals we believe can safely be released. 
Another lesson learned in recent years is that all of our detention 
operations have to be conducted with the understanding that they will 
eventually be transitioned to the host nation; capacity-building must 
always be a primary focus.
    Question. What is your assessment of the progress of efforts to 
build the capacity of the Government of Afghanistan to assume 
responsibility for detention operations?
    Answer. The U.S. Detention Facility in Parwan--our flagship 
detention facility in Afghanistan--began transitioning detention 
operations in January with Afghans assuming responsibility at some of 
the Detention Housing Units. The Afghan Government clearly intends to 
assume more responsibility for detention operations over time, and we 
will continue to support efforts to build additional Afghan capacity to 
take on this mission. There are two areas in particular that still need 
additional work as the transition continues. First, we have to continue 
our efforts to support the Afghan Government as it establishes a more 
capable judicial system, which will require recruiting and training 
more judges and prosecutors, among other officials. (These efforts will 
be bolstered by the NATO Rule of Law Field Support Mission-Afghanistan, 
which was approved by the North Atlantic Council and endorsed by ISAF 
Defense Ministers this month; this organization will be established as 
a dual-hat command with the U.S. Rule of Law Field Force-Afghanistan.) 
Additionally, the Afghan Government needs to establish a legal 
framework for effectively dealing with insurgents. If confirmed, I will 
work closely with the interagency Rule of Law task force to closely 
examine our efforts to build the necessary Afghan capacity so that 
Afghans can assume more responsibility for detention operations.

                    AFGHANISTAN-PAKISTAN COOPERATION

    Question. What is your assessment of the current level of 
cooperation between Afghan and Pakistani forces in confronting the 
threat of militant extremists in the border region?
    Answer. While the relationship between Afghan and Pakistani forces 
along the border has had its ups and downs, the level of cooperation in 
the border region has improved significantly over the last 2 years, 
especially at the operational level. For example, four Border 
Coordination Centers have been established; these centers are manned by 
Afghan, Pakistani, and ISAF liaisons and facilitate the timely exchange 
of information as well as operational coordination. Additionally, there 
have been several coordinated ``hammer and anvil'' operations along the 
border in Regional Command-East (RC(E)) between Afghanistan's Kunar 
Province and Pakistan's Mohmand Agency--in which forces on both sides 
of the border work together to ensure that insurgents do not use the 
border areas as an escape route.
    Despite this operational progress, there is significant room for 
improvement. There are still periodic incidents of ``friendly fire'', 
and insurgent cross-border movement has increased in recent months (due 
in part to the warmer weather). Despite these recent incidents--and 
increased tensions in the wake of the bin Laden raid--Afghan, 
Pakistani, and ISAF forces along the border have continued to use the 
Border Coordination Centers to exchange information.
    Question. If confirmed, what recommendations, if any, would you 
have for improving security cooperation between Afghanistan and 
Pakistan?
    Answer. If confirmed, I would seek to increase opportunities for 
military-to-military and civilian-to-civilian dialogue on security 
matters. I believe this dialogue is critical so that we can best 
coordinate our activities with each other and pursue new initiatives. I 
would also build at the operational and tactical level on the 
collaboration in RC(E) by expanding existing Border Coordination Center 
cooperation and by looking to expand coordinated cross-border 
operations, including along the border in Regional Command-South.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this position, to appear before this 
committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ISAF Commander/Commander, 
USFOR-A?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Claire McCaskill

                           CONTRACTING REFORM

    1. Senator McCaskill. Lieutenant General Allen, in 2010, General 
Petraeus issued a memorandum for commanders on counterinsurgency 
contracting guidance, in which he instructed commanders, among other 
things, to know where our money is going in contracting. General 
Petraeus said: ``where our money goes is as important as the service 
provided or the product delivered.'' Unfortunately, in the past few 
years, it has become painfully obvious that in many instances, we do 
not even know how much we are spending on contracting, which makes it 
very difficult to know where it is going.
    I can pick up the phone and get 10 different statements from 10 
different people about how much we are spending on contracting in 
Afghanistan. The Special Inspector General for Afghanistan 
Reconstruction (SIGAR) recently removed a report on Department of 
Defense (DOD) contract spending from its website, citing inaccuracies 
in one of the Central Contracting Command's reporting. The Government 
Accountability Office (GAO) just notified Congress that it was not yet 
able to comply with its congressionally mandated review of the 
Synchronized Predeployment and Operational Tracker (SPOT) database, 
which is supposed to provide a single repository to track contractors 
in Iraq and Afghanistan, because DOD, the Department of State (DOS), 
and the U.S. Agency for International Development (USAID) did not 
provide the information on time. GAO also reported that the agencies 
had declined to agree with GAO's prior recommendations to address 
problems with the accuracy of SPOT reporting.
    Do you plan to make contracting oversight a priority under your 
command and, if so, how?
    General Allen. I am committed to making contracting oversight a 
priority. We are working closely with Office of the Secretary of 
Defense and U.S. Central Command (CENTCOM) to address contracting 
accountability and to institute a mechanism to better capture in-
theater contracting information. This mechanism will enable us to have 
visibility of what we are spending and what we are about to spend; to 
ensure we are spending money with the right people and in the right 
areas to achieve the desired counterinsurgency results; and to ensure 
we serve as good stewards of the money the American people provide us. 
Additionally, in April 2011, CENTCOM-Joint Theater Support Contracting 
Command provided a contracting general officer to support our 
counterinsurgency contracting objectives and demonstrate our commitment 
to effective oversight as the Senior Contracting Official-Afghanistan. 
While his headquarters, staff, and 12 regional contracting centers only 
execute 20 percent of the spending in Afghanistan, they play a critical 
coordination role with all theater contracting agencies. Contracting 
oversight will be a priority during the period of my command.

    2. Senator McCaskill. Lieutenant General Allen, how will you work 
with the Joint Theater Support Contracting Command (under the CENTCOM 
Contracting Command) to manage contracting going on within your 
theater?
    General Allen. We will work with the Senior Contracting Official-
Afghanistan of the CENTCOM-Joint Theater Support Contracting Command to 
manage contracting within the theater through a three prong approach.
    First, we will continue to participate in established venues for 
the coordination of logistics and contracting initiatives throughout 
Afghanistan-including the Interagency Combined Joint Logistics 
Procurement Support Board, Counterinsurgency Contracting Executive 
Steering Committee, and Regional Commander's Interagency 
Counterinsurgency Management Boards.
    Second, we will ensure the strategic and holistic development of 
requirements and allocation of resources.
    Finally, we will remain engaged to improve our processes through 
regular feedback from Task Force 2010, Task Force Spotlight, 
commissions, audit agencies and inspectors general to include the 
Commission on Wartime Contracting, the U.S. Army Audit Agency, and the 
Special Inspectors General for Afghanistan Reconstruction.
    Towards these ends, the Senior Contracting Official-Afghanistan 
created Integration Cells within the U.S. Forces Afghanistan and 
Regional Commands to assist with contracting issues. The goals of the 
Integration Cells are to provide acquisition advice and education to 
the Commanders and staffs, to create cradle-to-grave requirements 
insight, to improve requirements definition, and speed procurement 
processes.

    3. Senator McCaskill. Lieutenant General Allen, how will you 
address the issue of contractors conducting oversight under your watch? 
I know there has been some improvement of late, but I remain concerned 
about that issue.
    General Allen. While contractors can serve a valuable function as a 
force multiplier for Contracting Officers Representatives and 
Administrative Contracting Officers, contract oversight will continue 
to be addressed primarily through Contracting Officer Representatives. 
Commanders in the field have to continue to emphasize the criticality 
of Contracting Officer Representative duties to ensure we hold 
contractors accountable to their contracts. Those Contracting Officer 
Representatives are our eyes and ears on-site for every contract to 
provide feedback to Contracting Officers across the theater to ensure 
satisfactory performance of those efforts.

    4. Senator McCaskill. Lieutenant General Allen, how will the 
reduction in surge troops called for by the President affect the cadre 
of U.S. Government personnel (whether military or civilian) that we 
have worked hard to build up to conduct oversight? GAO still says there 
aren't enough folks to do the job as it is.
    General Allen. The reduction may certainly reduce the number of 
personnel available to provide contract oversight. However, on 21 March 
2011 the Office of the Under Secretary of Defense issued a Class 
Deviation for the designation of Contracting Officer Representatives. 
This deviation clarifies that a Contracting Officer Representative must 
be an employee, military or civilian, of the U.S. Government, a foreign 
government, or North Atlantic Treaty Organization (NATO)/Coalition 
partners; this will increase the pool of available Contracting Officers 
Representatives, especially at remote sites without a significant U.S. 
military presence.
    This limitation requires that those personnel available for 
contract oversight more efficiently and effectively achieve our 
contract administration requirements. To enable this, I will leverage 
contractors within the boundaries of what is appropriate and legal 
given their status. In this way they can serve as a force multiplier 
for Contracting Officers Representatives and Administrative Contracting 
Officers. In addition, we will continue to take advantage of the 
Defense Contract Management Agency and their disciplined and robust 
processes for contract administration to administer complex and 
sensitive contracts in Afghanistan.

                 COMMANDERS' EMERGENCY RESPONSE PROGRAM

    5. Senator McCaskill. Lieutenant General Allen, concerning the 
Commanders' Emergency Response Program (CERP), I have made clear in the 
past to General Petraeus I really appreciate the core, fundamental 
concept of providing small-scale humanitarian relief and reconstruction 
projects to help win the local people and to provide force protection. 
I think you should have that flexibility as commander. However, I have 
also been concerned that we give too much money to CERP (and to its 
affiliate funds such as the Afghan Infrastructure Fund) to be 
effective. I also have never been confident in the accounting mechanism 
for CERP, even though I realize some improvements have been made under 
General Petraeus' watch. Can you tell me how you would, as commander, 
improve and maximize the way CERP is used?
    General Allen. When I take command, I will certainly review our 
CERP, to include prior audits and assessments. Additionally, we will 
continue to ask for outside agency audits to review our compliance and 
to evaluate our progress. I will take action on those audits as 
appropriate and required.

    6. Senator McCaskill. Lieutenant General Allen, what changes, if 
any, do you think need to be made to the way CERP is handled and 
overseen?
    General Allen. CERP has been a very successful tool for commanders 
on the ground. They depend heavily on this program to influence their 
battle space, support Afghan local populations, and most importantly 
work with local governments to improve capacity to deliver essential 
services and address urgent needs. These successes have improved the 
lives of Afghans and substantially contribute to the effectiveness of 
our counterinsurgency (COIN) operations. However, there is always room 
for improvement.
    Proposed changes include a greater emphasis on small-scale projects 
(less than $500,000) and those that can be completed within 1 year of 
obligation. Additionally, U.S. Forces-Afghanistan (USFOR-A) CERP 
guidance has been updated to require greater scrutiny of projects and 
additional steps to verify sustainability of projects. We are also 
going a step further and looking at our internal procedures. Finally, 
we are continuing to coordinate our efforts with development experts 
such as USAID and nongovernmental organizations working in the Combined 
Joint Operations Area-Afghanistan.
    These steps will provide increased oversight and significantly 
decrease the risk of project failures. We will remain vigilant in 
monitoring our ability to successfully execute CERP and continuously 
seek improvements to refine our procedures.

    7. Senator McCaskill. Lieutenant General Allen, what do you have to 
say about the effectiveness of CERP and how do you plan to document it, 
and its effect on the COIN strategy, as commander?
    General Allen. CERP has proven to be an effective tool that our 
commanders employ to execute our COIN strategy. It is used in 
conjunction with our COIN Contracting Guidance, which emphasizes hiring 
Afghans first, buying Afghan products, and building Afghan capacity. 
This is an integral part of our strategy to increase the Afghans' trust 
in their government and deter insurgent influences, which often prey 
upon young men that need jobs to support their families. CERP is also 
part of the greater reconstruction effort. We synchronize local efforts 
with national programs implemented by DOS/USAID and the Afghanistan 
Government's National Priorities Program.
    Based on observations from our Special Operations Forces and Civil 
Affairs specialists and their interactions with the population, the 
execution of post-project atmospherics show that the completion of a 
project consistently has a positive effect on improving relationships 
and our ability to interact with and influence both the general 
population and key leaders within a community. In addition, projects 
are often designed to achieve other stabilizing effects like 
stimulating economic activity and supporting local government. Project 
effects are feeding into more comprehensive assessments such as the 
Combined Forces Special Operations Component Command-Afghanistan 
(CFSOCC-A) Village Stability Methodology and International Security 
Assistance Force (ISAF) Joint Command (IJC) Provincial Stability 
Reports. These assessments address the three pillars of stability: 
development, security, and governance. These assessments and our 
experience collectively indicate that CERP has successfully supported 
stability operations and our overall COIN strategy.
                                 ______
                                 
               Question Submitted by Senator Mark Begich

                        LITERACY IN AFGHANISTAN

    8. Senator Begich. Lieutenant General Allen, in your answers to the 
advance policy questions from the committee you identified literacy as 
one of the greatest challenges to building the capacity of the Afghan 
National Security Forces (ANSF) to assume responsibility for security. 
I agree literacy is essential for a professional, capable and enduring 
security force. Literate Afghan people are also key to economic growth, 
proficient governance, and independence from corruption. What, if any, 
additional action do you believe the United States and coalition 
partners can take to increase literacy in Afghanistan, specifically 
within ANSF?
    General Allen. The ANSF Literacy Program's mission is to bring 
everyone in the ANSF to a third grade literacy level by the end of 
2014. To date, over 94,247 have received literacy training and 
successfully tested at either the first, second, or third grade level.
    To ensure long-term sustainability of the literacy program, there 
are three distinct opportunities for countries to contribute to 
literacy efforts in Afghanistan.
    First, countries can donate funds to the NATO Training Mission-
Afghanistan (NTM-A) established ``Addendum to the Trust Fund in Support 
of the Afghan National Army for the ANSF-Literacy and English Language 
Training, and Professional Military Education Programme.'' This fund 
exists to institutionalize the long-term commitment to literacy through 
the ANSFs. Donating to this fund will give the literacy program an 
opportunity to expand and provide literacy training to the ANSFs 
operational force beyond just the third grade level, and well beyond 
2014. To date, the largest contributing nation to this fund has been 
the United Arab Emirates with a $10 million donation.
    Second, the United Nations Educational, Scientific, and Cultural 
Organization has partnered with NTM-A and the Government of Japan to 
establish a comprehensive program that combines literacy with 
professional police education.
    Third, using the United Nations' highly regarded Education for All 
philosophy, countries can partner with the Afghan Ministry of Education 
to develop and certify a National Education Strategic Plan. Many 
features of this plan are already in place and literacy in schools is 
expected to increase steadily in the coming years.
                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen

                         U.S.-AFGHAN TECHNOLOGY

    9. Senator Shaheen. Lieutenant General Allen, as we draw down our 
forces in Afghanistan, the Afghan Government will need to be able 
provide for its own security on an ever-increasing basis. The Afghan 
Minister of Defense and the Chief of the Afghan Army believe 
technologies currently employed by the U.S. Marines Corps will help 
them provide security to their own forces and population. The Person-
Born Improvised Explosive Device (PB-IED), or suicide bomber, is one of 
the more difficult threats to detect, but is particularly dangerous at 
checkpoints. The Afghan military leaders have thus requested NTM-A 
approval to receive the technology used by the marines to detect and 
thus counter PB-IED from a safe distance. Could you please provide me 
with an update on the status of the Afghan request, or plans to provide 
the counter-PB-IED technology (commercial name: CounterBomber) 
capability to the Afghan forces?
    General Allen. In January 2011, NTM-A received a request from the 
Afghan Minister of Defense to review counter PB-IED technologies, 
followed by a March 2011 request of the Chief of the General Staff of 
the Afghan Army. NTM-A is working with the Afghan Ministry of Defense 
to evaluate counter Person-Borne Improvised Explosive Device 
capabilities from the perspective of capability, cost, sustainability, 
feasibility, and the ability to integrate into a larger, more 
comprehensive Afghan counter-improvised explosive device (IED) 
strategy. They are also evaluating the financial capacity of the 
Afghanistan government to sustain this technology after the transition 
of Coalition support and assistance. A current estimate for the Counter 
Bomber technology is approximately $175 million, which provides for 200 
systems with 3\1/2\ years of operations and support.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                     CONTRACTING IN CENTRAL COMMAND

    10. Senator McCain. Lieutenant General Allen, various initiatives 
undertaken by CENTCOM commander last year, in particular, Task Force 
2010 and Task Force Spotlight, have shed light on how some contractors 
(and subcontractors) to DOD have in some cases hired insurgents and 
other malign actors who were actively opposing U.S. forces in 
Afghanistan. Needless to say, if left unaddressed, this could 
significantly undermine the United States' conduct of counterinsurgency 
operations in theater. Since those initiatives begun, in your view, how 
successfully, or unsuccessfully, have the CENTCOM commander and DOD 
been in discovering and discontinuing the inadvertent funding of such 
relationships with contract funds?
    General Allen. I believe we are taking the appropriate steps to 
bring attention to the corruption problem and be good stewards on the 
management of contract funds; however, we still have much to do in this 
area.
    Over this past year, in partnership with DOD and CENTCOM, we 
greatly increased our understanding of the corruption problem and how 
inadvertent funding affects our counterinsurgency efforts in theater. 
Combined Joint Interagency Task Force Shafafiyat (Dari word meaning 
``transparency'') has helped us map out the criminal patronage networks 
that exist in Afghanistan and to address corruption as a strategic 
problem. Task Force Spotlight has aided in tracking and enforcing our 
procedures regarding private security companies. Task Force 2010 has 
assisted us in helping us better understand with whom we are doing 
business, and provided commanders and contracting activities with the 
information needed for them to take action.
    One of the principal tools available to us has been the infusion of 
intelligence into the assessment of potential vendors. Though not at 
the pace we desire, we are working closely with CENTCOM to expand the 
capability in Tampa to vet potential companies prior to doing business 
with them. To date, the ISAF Joint Command/CENTCOM Contracting Command 
vendor vetting cell has reviewed 483 companies and rejected 34 from 
contract award consideration. Task Force 2010, working with the 
Procurement Fraud Branch of the U.S. Army Legal Services Agency, 
follows up by referring those rejected companies for suspension and 
proposed debarment under the Federal Acquisition Regulation. Within the 
last year, we have seen an increase in the follow-on actions to debars 
companies and individuals who are deemed non-responsible and should not 
do business with the U.S. Government in Afghanistan. Our most recent 
results show 78 companies or individuals debarred; 67 companies or 
individuals suspended pending debarment; and 64 more companies or 
individuals submitted for consideration for suspension or debarment. In 
comparison with last year, we were tracking 23 companies or individuals 
debarred and 19 companies or individuals suspended pending debarment.

    11. Senator McCain. Lieutenant General Allen, in the National 
Defense Authorization Bill for Fiscal Year 2012, which this committee 
recently reported out, section 861 would enable contracting authorities 
at DOD to void a contract, or restrict the award of future contracts, 
to anyone who is determined by the CENTCOM commander to be actively 
opposing U.S. forces in Afghanistan. It also allows DOD to terminate--
without liability to the taxpayer--any contract with anyone who fails 
to exercise due diligence to ensure that no contract funds are being 
used by persons to actively oppose U.S. forces there. Another provision 
in the same bill, section 862, would authorize DOD to examine any 
records of a contractor (or subcontractor) in the CENTCOM theater to 
ensure that contract funds are not subject to corruption or extortion 
or not provided to anyone actively opposing U.S. forces in Afghanistan. 
The need for such authorities was originally requested by General 
Petraeus. In your view, would these authorities be sufficient to 
provide the Commander of ISAF and U.S. Forces Afghanistan with the 
flexibility needed to ensure that the United States is not 
inadvertently contracting with the enemy in Afghanistan?
    General Allen. I appreciate the support of this committee in 
providing us the tools needed to combat contract fraud and corruption. 
Though the provisions in the National Defense Authorization Act for 
Fiscal Year 2012 will not stop corrupt practices, it does address a 
critical gap within the Federal Acquisition Regulations. It provides us 
the authority to rescind or void a contract with someone identified as 
supporting or working for the enemy, and it provides us the 
transparency needed to look at all contracts in a contingency 
environment, especially regarding companies below the prime contractor 
level. Both of these authorities arm our leaders with the tools needed 
to gain visibility on the flow of contract funds, and if connections to 
the enemy are detected, the ability to take immediate steps to deny 
them further access to our money.

    12. Senator McCain. Lieutenant General Allen, what additional 
authorities may be needed, if any?
    General Allen. Currently no additional authorities are required. We 
recognize that Federal and DOD acquisition regulations, policies, and 
procedures do not adequately differentiate between peacetime and 
operational contracting practices. To address potential gaps and future 
authorities that may be needed to bridge the peacetime and the 
contingency environment, Task Force 2010 established a working group to 
review existing regulations, policies, and procedures with the goal to 
recommend areas where changes or select authorities can enhance our 
acquisition strategy and contract management in-theater. This forum 
includes all contracting and oversight agencies conducting business in 
Afghanistan.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                    OVERALL STRATEGY IN AFGHANISTAN

    13. Senator Inhofe. Lieutenant General Allen, what level of risk 
are we accepting by following the President's withdrawal timeline?
    General Allen. As commander, one of my very first duties would be 
to assess any necessary adjustments in concept and approach that may be 
required. In terms of risk, the surge recovery does not, in my opinion, 
render our objectives in Afghanistan unattainable. This is primarily 
because the surge, while still ongoing and important for continued 
momentum, has created success in several key parts of the country. It 
has curtailed the momentum of the insurgency, and the ANSFs continue to 
grow and develop in their warfighting capacity. Even once the security 
surge forces have been removed, there will still be some 68,000 U.S. 
troops and thousands of international forces in Afghanistan, not to 
mention some 70,000 more Afghan forces that will join the fight in the 
next 15 months. At the same time, the U.S. and NATO are both discussing 
long term strategic partnerships with Afghanistan. That said, I will 
continue to assess and evaluate the surge recovery and keep the chain 
of command informed.

    14. Senator Inhofe. Lieutenant General Allen, in which areas are we 
accepting more risk?
    General Allen. Any endeavor as complex as that which we are trying 
to achieve in Afghanistan requires balancing a variety of risks. As 
commander, it will be my job to assess the variety of challenges we 
face as we transition from ISAF lead to Afghan lead-not only in 
security, but in other areas as well.
    I believe that the campaign has the development of the ANSFs, 
ultimately to be in the lead of security by 2014 with U.S. forces in a 
strategic overwatch, as an objective that is attainable. It is my 
opinion that the ANSFs, backed up by continued U.S. support and the 
provision of key enablers, will be up to the task. We will seek to 
constantly evaluate risk, and mitigate it whenever possible. The 
mission for all of us, including coalition partners is far from over, 
and success will increasingly depend on the degree to which Afghans can 
sustain this most important fight. If in my assessments and judgment 
risk becomes untenable I will so advise my chain of command.

    15. Senator Inhofe. Lieutenant General Allen, which conditions have 
been met that justify the withdrawal of forces from Afghanistan at this 
point?
    General Allen. As General Petraeus has noted, Afghan and ISAF 
forces have halted the insurgency's momentum in much of the country and 
have reversed it in key areas. Based on my work as the Deputy Commander 
of U.S. Central Command, numerous visits to the theater over the past 3 
years, and extensive discussions with senior military and civilian 
leaders, I share that assessment. Meanwhile, we are continuing to exert 
unprecedented pressure on the insurgency with a variety of efforts, 
including the Afghan Local Police initiative that is mobilizing 
communities to defend themselves, Afghan-led efforts to reintegrate 
former fighters, and a variety of governance and development 
initiatives focused on establishing the conditions necessary to achieve 
long-term security. Much of this progress has been enabled by and 
increasingly led by the ANSFs, which are conducting their own surge.
    Even once the surge forces have been removed, there will still be 
some 68,000 U.S. troops and thousands of international forces in 
Afghanistan, not to mention some 70,000 additional Afghan forces that 
will join the fight in the next 15 months. At the same time, the U.S. 
and NATO are both discussing long-term strategic partnerships with 
Afghanistan. This reality sends an important message of commitment to 
the Afghan people, as well as a sense of urgency that Afghans must take 
more responsibility for their security.

    16. Senator Inhofe. Lieutenant General Allen, what conditions would 
cause you to ask President Obama to delay the withdrawal of troops?
    General Allen. As the commander in Afghanistan, one of my solemn 
duties would be to provide my best military advice to the President. I 
am going to monitor the operational environment and the conditions 
constantly, not just as they relate to the drawdown of the forces with 
respect to the surge, but throughout the entire period of time I 
command during this campaign. It is my responsibility to the chain of 
command and to our Commander in Chief to ensure that should I be 
concerned with the progress of the campaign, I would advise the chain 
of command with my forthright advice. If I feel that the drawdown of 
surge forces compromises our ability to achieve our national objectives 
in Afghanistan, I will not hesitate to recommend an adjustment to the 
current plan.

    17. Senator Inhofe. Lieutenant General Allen, what role do you 
expect your military judgment to play in decisions about troop levels 
in Afghanistan?
    General Allen. As commander in Afghanistan, one of my solemn duties 
would be to render my best military advice to the President of the 
United States, to include advice concerning the force levels necessary 
to accomplish my assigned mission. I expect that the President will be 
willing to receive that advice, to consider it, and to weigh it amongst 
the full range of issues and concerns presented to him. I am fully 
aware that the decisions the President makes must always be informed by 
a wide range of considerations, of which the assessment from 
Afghanistan is one important component.

    18. Senator Inhofe. Lieutenant General Allen, what conditions must 
be met in 2014 to transition to Afghan control?
    General Allen. There are three aspects to the stages of transition, 
the first of which is security. To complete security transition to 
Afghan control, the ANSFs should be responsible for population security 
and law enforcement, be accountable, and serve the Afghan people. ISAF 
has a defined role to be postured to provide the strategic overwatch 
and the assistance needed to achieve sustainable security. Second, 
Afghan governance and development must be sufficiently inclusive, 
accountable, and acceptable to the Afghan people. Lastly, the 
population should have access to basic social services and adequate 
rule of law in order to establish the foundation for sustainable 
economic growth. ISAF will enable these second two goals by supporting 
U.S. efforts across the whole of government, as well as international 
efforts to assist the Afghan people.

    19. Senator Inhofe. Lieutenant General Allen, do you believe this 
is a realistic date?
    General Allen. I believe that the mission before us is hard, but 
doable. ISAF is going to take advantage of the opportunity between now 
and the end of the year to assess where we are with the progress of the 
campaign.
    The primary governing factors that will determine successful 
completion by 2014 are ANSFs readiness, the Afghan Government's 
legitimacy, the civil-military campaign progress, and the resulting 
decisions made by the enemy and other key regional players. The 
greatest influence ISAFs have over all these objectives is the ANSFs 
development, rate of fielding forces, and the quality of its emerging 
leadership from the ministry-level down to the noncommissioned officer. 
Quality ANSFs will promote the Afghan Government's legitimacy, 
reinforce governance with improving law enforcement capacity, and have 
a positive effect on the campaign.

    20. Senator Inhofe. Lieutenant General Allen, what impact would a 
failure in Afghanistan have on U.S. national security in the long term?
    General Allen. The effects of a potential failure to achieve our 
core objective in Afghanistan, to ensure that Afghanistan is never 
again a sanctuary for al Qaeda, could be significant. Were al Qaeda 
able to re-establish sanctuaries because Afghan forces and governmental 
authorities proved incapable of securing and governing the country, 
there could be obvious negative implications for U.S. national security 
interests. Al Qaeda could operate once again from Afghan soil and there 
could very well be substantial civil strife in Afghanistan as well.
    The coalition in Afghanistan consists of 49 Troop Contributing 
Nations, the largest coalition since WWII and operating under a United 
Nations Security Council Resolution with significant international 
legitimacy. Additionally, this is NATO's first operation outside of 
Europe, and NATO performance in this area may well signal the future 
effectiveness and cohesion of the alliance in other out-of-area 
operations.

                 COUNTERINSURGENCY VS. COUNTERTERRORISM

    21. Senator Inhofe. Lieutenant General Allen, one ongoing debate is 
how to deal with insurgencies. Some believe the best way to defeat an 
insurgency is to win over the population through COIN strategy. Others 
believe in a counterterrorism strategy that directly targets the 
insurgents and their networks. Some proponents of the withdrawal have 
said that we can accomplish our goals in Afghanistan with special 
operators alone. However, one of our lessons learned in Iraq is the 
importance of large amounts of conventional forces for 
counterinsurgency operations. You have worked closely with General 
Petraeus on his efforts in Iraq and are now discussing operations in 
Afghanistan. What is the best strategy to achieve our primary goal of 
preventing Afghanistan from being used as a base for terrorists and 
extremists to attack the United States and our allies?
    General Allen. Insurgencies are exceptionally complex and each 
presents unique and differing challenges. The comprehensive civil-
military counterinsurgency strategy currently employed in Afghanistan 
includes operations across the spectrum of counterinsurgency, and 
includes targeted operations by counter-terrorism forces. Also 
important are clear, hold and build operations to protect the 
population, the development of the ANSFs to establish long-term 
security, and creation of local security forces to empower local 
authorities. It also provides support to various civilian endeavors. 
The goal is a comprehensive counterinsurgency strategy, closely 
integrated across the whole of government and the international 
coalition, which is comprised of forces from ISAF troop contributing 
nations.

    22. Senator Inhofe. Lieutenant General Allen, can counterterrorism 
alone achieve our primary goal in Afghanistan?
    General Allen. No. On its own, counter-terrorist operations are 
insufficient to neutralize the insurgency. To be effective, they must 
be part of a strategy which includes the fielding and 
professionalization of ANSFs and the development of governance and 
socio-economic capacity to the degree that allows the Afghan Government 
to maintain pressure on insurgent forces and prevent the return of 
transnational terrorist organizations like al Qaeda. This is the 
approach we are taking today, and one we should continue to pursue.

                      REINTEGRATION OF THE TALIBAN

    23. Senator Inhofe. Lieutenant General Allen, estimates of the 
strength of the various Taliban factions vary from 20,000 to 40,000. 
Almost 2,000 Taliban fighters have accepted the offer of reintegration 
from the Karzai Government. The reintegration program is aimed at the 
so-called ``accidental guerillas'' for which fighting in the insurgency 
is just a job. What is the status of this program?
    General Allen. Provincial Peace Councils have been established in 
32 provinces, with one emerging in Kandahar and one previously 
established in Nangarhar under review. Twenty-three Provincial Joint 
Secretariat Teams (technical and administrative support to Provincial 
Governors) have been formed. Currently 1,926 fighters have registered 
with the program, with others coming forward. Recently, 375 enrolled in 
one event in Badghis Province and will likely be added to the total 
once processed. However, progress is slower in the South and East where 
the infrastructure of the insurgency is most dense. The capacity to 
implement the program has been slow to develop. However, as structures 
develop, resources begin to flow, and confidence builds, we expect to 
see an increase in reintegration activity.
    Reintegration is not easy or straightforward. Most fighters fight 
on the basis of local grievances, which mean they join this program on 
the basis of local grievance resolution and local military pressure. 
This also means that the program is continually dealing with small 
groups of fighters as opposed to larger networks or blocks. ISAF is 
working at accelerating reintegration by applying military pressure on 
the insurgents, supporting Afghan national and provincial leadership 
and organization, and developing Afghan ability to support local, 
community-based solutions.

    24. Senator Inhofe. Lieutenant General Allen, what are your 
thoughts on the risks and payoffs of this program?
    General Allen. Reintegration is a logical outcome in any 
counterinsurgency campaign. With the emergence of the Afghan mechanisms 
to support reintegration, we will seek every opportunity to permit 
insurgents to stop fighting and join the peace process. The payoffs of 
the Afghan Peace and Reintegration Program are potentially significant, 
though it is currently making only incremental progress. The number of 
fighters who have officially enrolled is now almost 2,000 and growing 
steadily. In the past few weeks, the first demobilization event was 
held in Helmand province, and in the northwestern province of Badghis, 
375 fighters registered at a single event.
    We are realistic about potential scope of the program. One concern 
is that only the local `accidental guerillas' will reintegrate--not the 
hardened, ideologically driven fighters. However, the reintegration of 
local fighters potentially undermines support for the hard liner and in 
time may cause the latter to reintegrate. A second risk is that 
reintegrated fighters will return to the fight. However, the evidence 
so far is that the reintegrees who go through the demobilization 
process are genuine. The key to this success is local reconciliation 
combined with provincial and national vetting. A third risk is that the 
Afghan national and provincial governments' will lack the capacity to 
implement the program. ISAF is supporting the program by: assisting in 
the development of procedures; mentoring the selection and training of 
Provincial Joint Secretariat Teams; providing enabling funding through 
the DOD Afghan Reintegration Program; and, of course, by applying 
military pressure on the battlefield.

                    AFGHAN NATIONAL SECURITY FORCES

    25. Senator Inhofe. Lieutenant General Allen, is it correct to say 
that the capability of ANSF is the decisive point of our Afghan 
strategy?
    General Allen. The capability of the ANSF is one of the decisive 
points of the ISAF campaign. To that end, the coalition continues to 
emphasize ANSF growth and development. I should note recruiting 
continues to meet our desired goals, and the ANSF is increasingly 
capable and perceived positively. In addition, all Afghan National Army 
Branch schools are currently functioning and dedicated efforts to 
increase the professionalism of the ANSF are bearing fruit.
    This is not to say that we are without challenges. As the campaign 
progresses, it is important to support our ANSF partners in the 
campaign. We will continue to partner and mentor the ANSF at the 
appropriate levels, in order for the ANSF to continue to take the lead 
in security operations.

    26. Senator Inhofe. Lieutenant General Allen, will they be ready by 
the 2014 timeline that President Karzai has requested?
    General Allen. Although 2014 is an aggressive timeline for the ANSF 
to take the security lead, it is achievable. The ANSF will begin 
assuming security lead this month in seven areas of Afghanistan. As the 
transition process moves forward and the ANSF take security lead, they 
will not be doing so alone. As each geographic area undergoes 
transition, the associated ANSF units will progress through a series of 
stages where they grow in capability as their partnered ISAF gradually 
step back. In fact, in certain areas of the country, coalition forces 
will continue to provide advising and enabling capabilities to the ANSF 
to ensure they remain capable, credible, and connected to the Afghan 
people and a deterrent to insurgent and transnational terrorist groups. 
This support will continue only until such time the ANSF can become 
completely self-sufficient.

    27. Senator Inhofe. Lieutenant General Allen, as the ANSF end 
strength is increased, will there be sufficient U.S. forces available 
to partner with Afghan units?
    General Allen. As the ANSFs increase in strength, they will also 
grow in capability. Partnership remains a critical part of our campaign 
plan and future professionalization of the force, which is invaluable 
to our efforts to conduct irreversible transition by the end of 2014. 
That said, as we conduct the surge recovery, we will continue to assess 
our partnership framework as well as future requirements for enablers, 
mentorship, and support. Progress to date allows us to adjust our 
partnership ratios as enabled by improving security conditions on the 
ground.

    28. Senator Inhofe. Lieutenant General Allen, can the Afghan 
Government sustain/fund these robust security forces in the future?
    General Allen. The Afghan economy is expected to be able to 
generate some of the income to partially support its security forces, 
but the Afghan Government will require supplemental funding from the 
United States and the international community to sustain them. The 
amount of outside funding will depend upon the level of the insurgency, 
and the estimated size of the ANSF required for the maintenance of 
security in Afghanistan beyond 2014.


              SECURITY ASSISTANCE AND ENGAGEMENT PROGRAMS

    29. Senator Inhofe. Lieutenant General Allen, our military-to-
military (1206), civilian-to-civilian (1207), small-scale special 
operations (1208), CERP, and Combatant Commander's Initiative Fund 
(CCIF) have been incredibly successful in aiding developing nations, 
fighting terrorism, and providing resources for emergency situations. 
My belief is that the key to these programs has been the combined 
efforts of DOD, DOS, the chiefs of mission, and combatant commanders 
working together to increase the capabilities of our partner nations to 
provide for their own security, increasing stability in their region 
and around the globe. What value do these funds provide in your 
prospective areas of responsibility?
    General Allen. Our assessments have shown that the CERP has 
significantly supported our comprehensive civil-military 
counterinsurgency strategy. Through investments into Afghan 
communities, the CERP empowers commanders to reinforce security gains 
with localized governance and development initiatives. The CERP is a 
powerful mechanism by which we have already convinced many Afghans in 
previously contested areas that the Afghan Government has greater 
capacity to offer peace, stability, and prosperity than insurgents.
    CERP is a flexible tool that enables U.S. Commanders to respond to 
urgent humanitarian relief and reconstruction requirements within their 
area of responsibility (AOR). In Afghanistan, CERP has been employed to 
great effect to repair battle damage, repair irrigation systems, build 
schools and medical clinics, provide urgently needed medical supplies, 
and supply many other urgent needs to local Afghans. We should continue 
to aggressively utilize CERP to achieve the desired end state in the 
Combined Joint Operations Area-Afghanistan (CJOA-A).
    To a significantly lesser extent, we have also made use of CCIF in 
the CJOA-A. CCIF is currently being used to support Rule of Law (ROL) 
enhancement with the construction of guard housing and other support 
facilities at the Saraposa Prison in Kandahar.

    30. Senator Inhofe. Lieutenant General Allen, do you have any 
concerns about being able to effectively execute these programs in your 
prospective areas of responsibility?
    General Allen. The CERP projects have improved the lives of 
millions of Afghans and substantially contribute to the effectiveness 
of our counter-insurgency (COIN) operations. In some areas, the 
operational environment has matured beyond the acute phases of 
stability operations to more advanced activities that support 
development and enabling governance. As a result, some aspects of CERP 
have evolved to include more complex, longer-term projects. I am 
concerned that commanders are incurring an increased risk of project 
failures as they attempt to address some of the more advanced needs 
within their battle space, but fortunately steps are already being 
taken to mitigate this concern.
    Proposed changes include a greater emphasis on small-scale projects 
(less than $500,000) and those that can be completed within 1 year of 
obligation. Additionally, U.S. Forces-Afghanistan (USFOR-A) CERP 
guidance has been updated to require greater scrutiny of projects and 
additional steps to verify sustainability of projects. We are also 
going a step further and looking at our internal procedures. Finally, 
we are continuing to coordinate our efforts with development experts 
such as United States Agency for International Development (USAID) and 
nongovernmental organizations (NGOs) working in the CJOA-A.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                   AFGHANISTAN--MITIGATION STRATEGIES

    31. Senator Chambliss. Lieutenant General Allen, while impressive 
gains in security have been made throughout Afghanistan since the surge 
was implemented, those gains have been repeatedly characterized as 
``fragile and reversible''. Afghanistan remains a dangerous place. 
Nonetheless, last week President Obama announced the beginning of the 
withdrawal of the surge forces ordering 10,000 troops to depart 
Afghanistan by the end of this year and the transfer of authority from 
ISAF to the Afghans to be completed by the end of 2014. As Tunisia, 
Egypt, and other nations in the Middle East have shown us so suddenly 
in these past weeks and months, and given the increasing level of 
instability throughout the Muslim world, is the drawdown of U.S. combat 
forces in Afghanistan the right thing to do at this time from an 
operational perspective?
    General Allen. I support the President's decision and believe that 
we can accomplish our objectives. This is primarily because the surge, 
while still ongoing and important for continued momentum, has created 
success in several key parts of the country. It has curtailed the 
momentum of the insurgency, and the ANSF continues to grow and develop 
in their warfighting capacity. Even once the surge forces have been 
removed; there will still be some 68,000 U.S. troops and thousands of 
international forces in Afghanistan, not to mention some 70,000 more 
Afghan forces, which will join the fight in the next 15 months. At the 
same time, the United States and NATO are both discussing long-term 
strategic partnerships with Afghanistan. I will offer my candid 
assessment to the chain of command on the current state of the 
conflict, as well as provide options with respect to the President's 
goals in accomplishing this strategy. As the commander in Afghanistan, 
it would be my responsibility to render my best military advice, and 
then to execute the President's decisions as skillfully and diligently 
as possible.

    32. Senator Chambliss. Lieutenant General Allen, should things take 
a turn for the worse in Afghanistan, what mitigation strategies are you 
prepared to execute to manage risk to the mission and protect U.S. 
personnel remaining in Afghanistan as we remove forces from theater, 
and if needed, would you recommend ceasing the withdrawal of U.S. 
forces and even increasing U.S. forces if that were the right 
operational move?
    General Allen. The primary means to mitigate risk related to the 
United States surge drawdown is through the continued growth and 
development of the ANSF. Increases in the quantity of ANSF will likely 
outpace decreases in ISAFs. Of note, the Afghan Local Police are a 
particularly important element of risk mitigation, since they reside in 
local areas, often where U.S. and coalition forces do not already have 
a dense presence.
    I will closely monitor the operational environment and make 
appropriate recommendations to mitigate risk and to adapt the force and 
our operational approach as necessary. It is imperative that we 
constantly review and assess our progress by challenging previous 
assumptions and then adapt our campaign and force to confront a 
changing environment. I will keep the chain of command informed of my 
assessments and any adjustments that may be required as the operational 
environment evolves.

                   AFGHANISTAN RECONCILIATION EFFORTS

    33. Senator Chambliss. Lieutenant General Allen, in your responses 
to advance policy questions you mention your service as the ``deputy 
commanding general of the II Marine Expeditionary Force (Forward) when 
it deployed to Iraq's Anbar Province from 2007-2008'' as experience 
that ``not only prepared [you] for battlefield command and the harsh 
reality of war but . . . also taught [you] a tremendous amount about 
the nature of this kind of conflict and the complex challenges unique 
to counterinsurgencies.'' While you performed this duty during the 
Anbar Awakening in Iraq, Afghanistan is not Iraq. Afghans are 
accustomed to switching sides frequently, sometimes even during a 
battle. With that in mind, if confirmed as the next commander in 
Afghanistan, how do you propose furthering the political process of 
reconciliation to help ensure we are able to create and leave behind a 
secure Afghanistan and ensure the ``fragile and reversible'' gains we 
have made are permanent?
    General Allen. Reconciliation is a political process among the 
Afghan people, and is supported by the DOS through the U.S. Embassy. 
ISAF has a key role in enabling this process, and is one which I will 
fully support. Reintegration is a complementary process, one where ISAF 
supports the Afghan-led Afghan Peace and Reintegration Program by 
assisting in the development of procedures, mentoring the selection and 
training of Provincial Joint Secretariat Teams, providing enabling 
funding through the DOD Afghan Reintegration Program, and by applying 
military pressure on the battlefield. These programs are an integral 
element of the counter insurgency (COIN) campaign, are fundamental to 
the strategic peace process, and are a key building block of the 
transition process. Progress in reconciliation processes is a function 
of building on security gains and governance improvements such that 
they tip the balance of confidence at all levels decisively in favor of 
the government. Building on current gains, a successful transition will 
provide the Afghans with the strength to make reconciliation and 
reintegration irreversible.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown

                        TRAINER-TO-TRAINEE RATIO

    34. Senator Brown. Lieutenant General Allen, the President's 
withdrawal plan would leave about 68,000 U.S. troops on the ground in 
Afghanistan by the end of next summer, along with an expected ANSF end-
strength totaling about 352,000 soldiers and police. From your 
perspective, what is the ideal trainer-to-trainee ratio you intend to 
meet by the end of this year?
    General Allen. The current overall coalition trainer to ANSF 
trainee ratio is approximately 1:14, which is sufficient to produce the 
Army combat and police formations required for the Afghans to 
transition to the security lead. However, the critical shortage of 65 
air coalition trainers hinders the development of the Afghan Air Force 
(Mi-17 and C-27 pilots). The Afghan logistics and medical systems are 
also short trainers; these have been identified and are scheduled to be 
``boots on the ground'' by the end of the year. This number of trainers 
will allow NTM-A to reach the ANSF growth objective of 352,000 by 
October 2012 and should complete the training and fielding of the 
Afghan Army and Police by December 2013. Additionally, NTM-A is 
training and certifying Afghan trainers to be able to take the lead for 
basic training of Army and Police. The goal by the end of 2011 is to 
have 4,400 Afghan trainers assume the lead for training allowing 
coalition trainers to shift focus to professionalize the force and 
develop systems that will endure past transition at the end of 2014.

    35. Senator Brown. Lieutenant General Allen, with a current 
shortfall of 490 institutional trainers, how will the withdrawal of 
10,000 troops by the end of this year affect your training mission?
    General Allen. The withdrawal of 10,000 troops by the end of this 
year is not expected to impact the training mission. NTM-A trainers who 
are inbound from the United States and coalition countries between now 
and this fall will address all training shortfall except 65 air 
trainers (C-27 and Mi-17 pilots)-likely enabling us to reach the growth 
objective of 352,000 by October 2012 and complete the training and 
fielding of the Afghan National Army and Afghan National Police by the 
end of 2013. One key effort to meeting this goal will be appropriately 
balancing trainers and force structure requirements in the future.

    36. Senator Brown. Lieutenant General Allen, what is the ideal 
trainer-to-trainee ratio you intend to meet by the end of next summer? 
Is that number an acceptable level of risk, in your opinion?
    General Allen. The current overall coalition trainer to ANSF 
trainee ratio is approximately 1:14, which is sufficient to produce the 
Army combat and police formations required for the Afghans to 
transition to the security lead. However, the critical shortage of 65 
air coalition trainers hinders the development of the Afghan Air Force 
(Mi-17 and C-27 pilots). The Afghan logistics and medical systems are 
also short trainers; these have been identified and are scheduled to be 
``boots on the ground'' by the end of the year. This number of trainers 
will allow NTM-A to reach the ANSF growth objective of 352,000 by 
October 2012 and should complete the training and fielding of the 
Afghan Army and Police by December 2013. Additionally, NTM-A is 
training and certifying Afghan trainers to be able to take the lead for 
basic training of Army and Police. The goal by the end of 2011 is to 
have 4,400 Afghan trainers assume the lead for training allowing 
coalition trainers to shift focus to professionalize the force and 
develop systems that will endure past transition at the end of 2014.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins

                   AFGHAN NATIONAL POLICE CONTRACTING

    37. Senator Collins. Lieutenant General Allen, both DOD and DOS 
have played a role in training the Afghanistan National Police. DOD has 
established the desired outcomes for this training, and, until this 
year, DOS handled the contracting. At the beginning of last year, the 
DOD and DOS Inspectors General reported that DOD failed to provide DOS 
with these requirements to include them in the contracts. 
Unfortunately, only 11 of the 64 police districts evaluated met the 
goal of being able to carry out law-enforcement actions unaided. We are 
told by the DOD Inspector General (IG) that the contract now resides 
with DOD. What metrics and performance requirements has DOD written 
into this training contract now that it has assumed responsibility for 
it?
    General Allen. In April 2011, DOS transferred the Afghan National 
Police training mission to DOD. DOD and specifically NTM-A picked up 
this training mission and converted the training from contractor to 
coalition civilian and military personnel. The DOD IG conducted an 
audit of DOS to DOD transfer of mission and provided 10 findings in 
their draft report. NTM-A has addressed 9 of the 10 recommendations, 
with the remaining open recommendation being addressed between DOS and 
DOD leadership regarding funding reimbursement.
    NTM-A has provided information to DOD IG as to how it has addressed 
or mitigated 9 of the recommendations, which will be identified in the 
final report from the DOD IG. Specific to the 64 police districts to 
meet the goal of being able to carry out law-enforcement actions 
unaided, ISAF Joint Command has written performance metrics to gauge 
the operational capability of the Afghan Police. The ISAF Joint Command 
Unit Assessment Tool serves as the basis for these metrics and 
performance requirements. Specific metrics and performance 
requirements, which are written in the Ministry of Interior Training 
and Support Statement of Work (dated 2 February 2011), include 
measuring the Afghan National Police's ability to report the status of 
personnel, logistics, and operations and then take specific actions 
based on these reports in order to enable the long-term viability of 
the force.
                                 ______
                                 
    [The nomination reference of LtGen John R. Allen, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 8, 2011.
    The following named officer for appointment to the grade of general 
in the U.S. Marine Corps while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General

    LtGen John R. Allen, 0000.
                                 ______
                                 
    [The biographical sketch of LtGen John R. Allen, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
            Biographical Sketch of LtGen John R. Allen, USMC
Position:
    Deputy Commander, U. S. Central Command

Assigned:
    17 Jun 08

Projected Rotation:
    17 Jun 11

Date of Rank:
    31 Oct 08

Date of Birth:
    15 Dec 53

Date Commissioned:
    2 Jun 76

MRD:
    1 Jul 14

Education/Qualifications:
    U.S. Naval Academy, BS, 1976
    Georgetown University, MA, 1983
    Defense Intelligence College, MS, 1984
    The Basic School, 1977
    Amphibious Warfare School Non-Resident, 1982
    CMC Fellow--Center for Strategic and International Studies, 1985
    Marine Corps Command and Staff College, 1993
    National War College, 1998
    CAPSTONE, 2006
    CFACC, 2008
    CLFLCC, 2008
    Infantry Officer
    Joint Qualified Officer

Commands:
    Acting Commander, U.S. Central Command (LtGen: June 10-Aug. 10)
    Commanding General, 2d Marine Expeditionary Brigade (MajGen: Aug. 
06-June 08)
    Commandant of Midshipmen, U.S. Naval Academy (Col: Dec. 01-Sep 03)
    Commanding Officer, The Basic School (Col: June 99-Apr. 01)
    Commanding Officer, 2d Battalion, 6th Marines, 2d Marine Division 
(LtCol: July 94-Mar. 96)

Joint assignments:
    Deputy Commander, U.S. Central Command (LtGen: July 08-June 10)
    Principal Director (Asia & Pacific), Office of the Deputy Under 
Secretary of Defense (Asia &Pacific) (BGen: Oct. 03-June 06)
    Commanding Officer, Migrant Processing, Joint Task Force-160 
(LtCol: May 94-July 94)

Service Staff Assignments:
    Deputy Commandant of Midshipmen, U.S. Naval Academy (Col: Apr. 01-
Dec. 01)
    Military Secretary to the Commandant of the Marine Corps (Col: June 
98-June 99)
    Aide-de-Camp to the Commandant of the Marine Corps (LtCol: Mar. 96-
July 97)
    Assistant Operations Officer, G-3, 2d Marine Division (Maj/LtCol: 
June 93-Mar. 94)
    Director, Infantry Officers' Course, The Basic School (Maj: June 
90-Aug. 92)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military offiers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LtGen John R. 
Allen, USMC, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John R. Allen.

    2. Position to which nominated:
    Commander, International Security Assistance Force.

    3. Date of nomination:
    June 8, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    15 December 1953, Fort Belvoir, VA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Katherine Glickert Allen.
    Maiden name: Katherine Ann Glickert.

    7. Names and ages of children:
    Betty Batchelder Allen; age 30.
    Barbara Elizabeth ``Bobbie'' Allen; age 26.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations
    Term Member, Council on Foreign Relations
    Marine Corps Association
    Naval Academy Alumni Association
    Georgetown University Alumni Association
    National War College Alumni Association
    National Naval Officer Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, or any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Honorary Life Member, Montford Point Marine Association
    Pi Sigma Alpha, National Political Science Honor Society
    Marine Corps Fellow, Center for Strategic and International Studies
    Commandant of the Marine Corps Fellow

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     John R. Allen.
    This 23rd day of May, 2010.

    [The nomination of LtGen John R. Allen, USMC, was reported 
to the Senate by Chairman Levin on June 29, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 30, 2011.]


NOMINATIONS OF MADELYN R. CREEDON TO BE ASSISTANT SECRETARY OF DEFENSE 
   FOR GLOBAL STRATEGIC AFFAIRS AND ALAN F. ESTEVEZ TO BE ASSISTANT 
       SECRETARY OF DEFENSE FOR LOGISTICS AND MATERIEL READINESS

                              ----------                              


                         TUESDAY, JULY 19, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Nelson, Hagan, 
Begich, Blumenthal, McCain, Brown, and Ayotte.
    Also present: Senators Lugar and Bingaman.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Ilona R. Cohen, counsel; Ozge 
Guzelsu, counsel; Richard W. Fieldhouse, professional staff 
member; Creighton Greene, professional staff member; Jessica L. 
Kingston, research assistant; Peter K. Levine, general counsel; 
Jason W. Maroney, counsel; Thomas K. McConnell, professional 
staff member; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Daniel A. Lerner, professional staff member; 
Diana G. Tabler, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Kathleen A. Kulenkampff and 
Hannah I. Lloyd.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Ann Premer, assistant to Senator 
Nelson; Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Ethan Saxon, 
assistant to Senator Blumenthal; Clyde Taylor IV, assistant to 
Senator Chambliss; Charles Prosch, assistant to Senator Brown; 
and Brad Bowman, assistant to Senator Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Madelyn Creedon to be Assistant Secretary of Defense for Global 
Strategic Affairs and Alan Estevez to be the Assistant 
Secretary of Defense for Logistics and Materiel Readiness.
    We welcome our nominees and their families to today's 
hearing. The long hours and the other sacrifices that our 
nominees are willing to make to serve our country are 
appreciated by us, and they could not happen without the 
support of their families. I hope the nominees will take an 
opportunity when we call on them for their opening statements 
to introduce any family members or friends who are here with 
them.
    Both of our nominees have exceptional records of public 
service. Mr. Estevez has served with distinction in the 
Department of Defense (DOD) for 30 years, beginning with a 
series of positions in the Military Traffic Management Command 
in the 1980s and rising through the ranks over the course of 
five administrations to his current position as Principal 
Deputy Assistant Secretary of Defense for Logistics and 
Materiel Readiness.
    Ms. Creedon has served our country for the last 30 years in 
positions that included Assistant Administrator of the National 
Nuclear Security Administration (NNSA) for Defense Programs, 
Associate Deputy Secretary of Energy for National Security 
Programs, General Counsel for the Defense Base Closure and 
Realignment Commission, and a trial attorney in the Department 
of Energy.
    Of course, Madelyn has served with distinction as counsel 
for this committee for 18 of those years, from 1990 to 1994, 
from 1997 to 2000, and from 2001 to the present. Over that 
time, we have all benefited from Madelyn's energy, her 
intelligence, and her breadth of knowledge. We know firsthand 
of her extraordinary understanding of the nuclear, strategic, 
and space programs of DOD, programs that few know as well as 
she does.
    Our committee has long benefited from her passionate 
commitment to the success of these programs, and to the 
national security of the United States. We will miss you, 
Madelyn, both personally and professionally.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I congratulate Mr. Estevez and Ms. Creedon on their 
nominations.
    Ms. Creedon, as you mentioned, has served with distinction 
for over 17 years on the staff of the Senate Armed Services 
Committee. Ms. Creedon, I guess you are free at last, as the 
sentiment goes. [Laughter.]
    I look forward to hearing, Ms. Creedon, your views 
regarding the future of nuclear reductions and how deterrence 
of attacks by our adversaries should most effectively be 
maintained, on the recapitalization of the nuclear weapons 
enterprise, and the future development and sustainment of 
missile defense.
    The Strategic Arms Reduction Treaty (START) only entered 
into force in February. It will take 7 years to fully 
implement. The administration has signaled its intent to pursue 
further reductions to the size and scope of the nuclear 
stockpile.
    During debate on the treaty in the Senate, the Senate made 
it clear that the recapitalization of our aging nuclear weapons 
infrastructure would be a prerequisite for pursuing further 
reductions, and the administration has proposed an adequate 
investment strategy. But to date, and with spending levels in 
flux across the board, it remains unclear if the strategy will 
be fulfilled.
    Recent comments by the President's national security 
adviser have prompted new questions about the administration's 
intent, including the possibility of unilateral reductions and 
changes in targeting requirements and alert postures.
    With respect to defense cyber strategy, Deputy Secretary of 
Defense, William Lynn, gave a speech last week at the National 
Defense University, which I thought was an important speech, 
but it also failed to answer some fundamental questions about 
how DOD will approach its responsibilities for defending 
national security aspects of cyberspace, including what 
constitutes a hostile act against our cyber capabilities and 
when the United States would respond, as necessary, with 
offensive cyber operations.
    The comments of the Vice Chairman of the Joint Chiefs of 
Staff, General Cartwright, who questioned the predominantly 
defensive strategy portrayed by Secretary Lynn, highlight the 
need for the administration to clarify the authorities and 
policy that will apply to military operations in cyberspace.
    Last month, Secretary Panetta said that, ``The next Pearl 
Harbor we confront could very well be a cyber attack.'' Yet, so 
far, U.S. strategy appears to have major shortcomings that 
could impair our ability to carry out military operations 
during a cyber attack.
    Mr. Chairman, I would freely admit that Congress has not 
gotten its act together on this issue either.
    General Cartwright stated his view, ``There is no penalty 
for attacking the United States right now.'' This statement, 
from one of our most senior military leaders, underlines the 
uncertainty that now exists.
    I have often stated my view that Congress needs to act 
promptly to develop and pass comprehensive legislation to 
address cyber threats not only to defense networks and systems, 
but also to maintain the Nation's critical infrastructure, 
encompassing the electric grid, air traffic control system, 
water supplies, financial networks, and much more from a cyber 
attack.
    The Department's cyber strategy identified this area as one 
of its five pillars, but we have yet to answer the vast 
majority of key policy and legal questions that exist.
    I still believe that the best course of action for the 
Senate to take is to establish a select committee on 
cybersecurity and electronic intelligence leak that would 
develop comprehensive cybersecurity legislation, building on 
much of the good work that has been done already, but 
considering new ideas and approaches as necessary.
    With various agencies, Senate committees, and the White 
House moving forward with cybersecurity proposals, there is a 
need for clarity and unity of effort. A temporary select 
committee could provide much-needed order and urgency of 
purpose to the process.
    Ms. Creedon, I look forward to hearing your assessment, as 
well as the role you foresee you will play in addressing and 
answering these questions on policy and legal authorities.
    Mr. Estevez, the Department and combatant commands are now 
carrying out the tasks of removing, relocating, and 
transferring equipment in Iraq and Afghanistan. Major 
challenges remain in establishing new supply lines if our 
ability to move equipment through Pakistan into Afghanistan is 
jeopardized.
    Additionally, we will need your expertise and background as 
the Department is faced with operations and sustainment costs 
of the F-35 that may exceed $1 trillion over the life of the 
aircraft.
    We will also need to ensure that the current tendency to 
slash future defense budgets will not detrimentally affect 
readiness, to include the capabilities of our forces, depots, 
and other industrial bases to the point which we may be faced 
with a hollow force reminiscent of the 1970s.
    I look forward to your testimony on these issues, as well 
as the continued transformation of the Department's joint 
logistics processes to better support the warfighter.
    I thank both the nominees again for their willingness to 
serve in these positions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now we are going to ask Senator Lugar to make an 
introduction of Ms. Creedon.
    We welcome you. Senator Lugar, you are truly one of our 
experts on national security. You work with this committee on 
so many issues important to our national security throughout 
the years, nuclear proliferation just being one of those 
issues. We give you a very warm welcome to our committee this 
morning, and you can proceed with your introduction.
    Senator Lugar.

STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM THE STATE 
                           OF INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, for your 
warm introduction--Ranking Member Senator McCain, Senator 
Nelson.
    It is truly an honor once again to introduce Madelyn 
Creedon, nominated to serve as the Assistant Secretary of 
Defense for Global Strategic Affairs in the Pentagon.
    Because of the testimony already of the distinguished 
chairman and ranking member, I know that she really needs no 
introduction, but I will proceed anyway because I am proud that 
the State of Indiana and the city of Indianapolis have produced 
an experienced and very capable threat reduction and deterrence 
expert, a longtime member of the staff of this committee.
    I support her nomination, and I am proud to recommend 
Madelyn Creedon, this distinguished Hoosier, to the committee 
today.
    This is not the first time I have had this privilege, 
providing support for Madelyn. If confirmed, it will not be 
Madelyn's first time to serve in the executive branch in a 
Senate-confirmed position. In April 2000, I was pleased to 
express my support for her to this committee as the President's 
nominee to be the Deputy Administrator of the National Nuclear 
Security Administration for Defense Programs.
    Before and after Madelyn's work at the NNSA, she worked on 
the staff of the Senate Armed Services Committee, and her work 
on both the Subcommittee on Strategic Forces and the 
Subcommittee on Emerging Threats and Capabilities of this 
committee are well known to all members. She has worked 
extensively on efforts to strengthen and improve threat 
reduction programs in the former Soviet Union, including the 
Nunn-Lugar Cooperative Threat Reduction (CTR) program.
    Indeed, I first encountered Madelyn when she was working 
for my colleague, Senator Sam Nunn, the former distinguished 
chairman of this committee.
    If confirmed, she will play a vital role in the globalizing 
of the Nunn-Lugar program to new countries in her capacity as 
the Assistant Secretary for Global Strategic Affairs. If 
confirmed, I look forward to hearing from her on a regular 
basis on the progress of these new efforts.
    Mr. Chairman, let me mention my interest in the growing 
importance of DOD programs over which she will preside and, 
thus, the growing importance of these positions. Over 2 years 
ago, the National Academy of Sciences issued a report urging 
DOD to enlarge the Nunn-Lugar CTR program beyond the states of 
the former Soviet Union to address newly emerging threats posed 
by materials and weapons of mass destruction (WMD).
    The report identified the need for the CTR program to be 
made more flexible, more agile, more prepared to move more 
quickly if it were to be successful in its application outside 
the states of the former Soviet Union.
    Yet, despite the Academy's recommendation, despite the 
enactment of new legislation to provide the program with 
authorities to operate outside the former Soviet Union, and 
despite new presidential policy directives, including the 
global nuclear lockdown strategy and the release of PPD-2 on 
the threats posed by dangerous biological pathogens, the 
current pace of the work to meet these goals suggests that the 
President's objectives are unlikely to be met. These are part 
of the challenges facing our nominee, should she be confirmed.
    I appreciate the need to ensure that CTR forms of 
assistance are used appropriately to reduce WMD threats, that 
our partners can absorb and sustain the assistance, and that 
the actions of the U.S. Government are coordinated and 
effective. But I am concerned that in this round of 
administration, coordination, and planning meetings, 
certifications and determinations have resulted in paralysis, 
not progress, to the point where critical threat reduction and 
national security opportunities may be forfeited.
    The path to globalizing the CTR program beyond the original 
states of the former Soviet Union is open. The program is well-
positioned to enter a new phase of global security engagement. 
It has the authority and the direction. What has been missing 
is the political and bureaucratic will to move forward with 
implementation.
    Indeed, I would suspect that one of the major challenges 
facing our nominee will be to work in close cooperation with 
the implementation of Nunn-Lugar Global Security Engagement to 
make each program as effective as possible.
    Lastly, Mr. Chairman, many committee members will recall 
the slogan associated with the North Atlantic Treaty 
Organization (NATO) expansion, namely, ``out of area or out of 
business''. The same may be said with regard to the CTR 
program, as efforts are undertaken to expand the original 
program to meet the threats of WMD, no matter their type or 
origin or geographical location.
    Two factors have led DOD to identify the importance of 
taking the CTR program to Africa, namely, the growing concern 
over bioterrorism and the natural prevalence of lethal 
pathogens in African nations.
    Indeed, terrorist activities on the African continent are a 
growing concern. U.S. Africa Command, the U.S. military command 
responsible for engagement in Africa, described the threat in 
its 2010 posture statement this way, ``In the last year, al 
Qaeda and terrorist groups in Africa appear to have 
strengthened their collaboration. Al Qaeda operatives are 
active in East Africa. The leaders of Somalia-based al Shabaab 
have publicly aligned themselves with al Qaeda. Al Shabaab 
continues to operate multiple terrorist training camps in 
Somalia with al Qaeda participation.''
    The CTR Global Security Engagement Program in Africa that 
our nominee will inherit is designed to help secure vulnerable 
facilities, promote cooperative research and transparency in 
handling dangerous pathogens, and help build an early-warning 
system capable of quickly detecting, diagnosing, and reporting 
infections to help determine if they are natural or man-made 
and to stop their spread.
    Last November, I invited several members of Madelyn's 
staff-to-be in the Pentagon to join me on a visit to East 
Africa, particularly the states of Uganda and Kenya, to look 
into the interface between biosecurity and public health issues 
and the means by which the Nunn-Lugar Global Security 
Engagement program might help to contain this threat. With 
their proximity to the Middle East and large swaths of weakly 
governed lands, like Somalia, biological virus and bacteria 
research facilities could be attractive targets for terrorist 
groups or black market traders.
    Moreover, public health boosts are important benefits to 
future security work of CTR Global. With the humanitarian 
interest in helping to prevent disease, such cooperative 
efforts to quickly detect, diagnose, and report dangerous 
infections are critical to stopping global pandemics.
    Our nominee will be required to practice all of her 
diplomatic skills in mentoring these programs in Africa. The 
CTR program is building on relationships established by the 
Centers for Disease Control and the U.S. Army medical research 
units to work with these laboratories as additional security 
and shared scientific research are performed.
    The intersection of public health issues with bioterrorism 
concerns will test the merits of the nominee. The selection of 
Madelyn to lead policy efforts in global strategic affairs is 
certainly a good one.
    Despite the broad nature of the public areas she will 
oversee, including countering WMD, nuclear forces, missile 
defense, cybersecurity, and space issues, she will be asked to 
ensure that the bedrocks of the CTR and Global Security 
Engagement components of our future counterproliferation 
efforts are not left to bureaucratic drudgery and interagency 
inertia. I know she understands that effective program 
execution relies on the collaboration of both the policy and 
implementation functions of DOD.
    For all these reasons, Mr. Chairman, I strongly support her 
nomination. I am honored to be before the committee this 
morning.
    [The prepared statement of Senator Lugar follows:]

             Prepared Statement by Senator Richard G. Lugar

    Chairman Levin, Ranking Member McCain, members of the Armed 
Services Committee, it is an honor for me to introduce Madelyn Creedon, 
nominated to serve as Assistant Secretary of Defense for Global 
Strategic Affairs in the Pentagon. However, I know she really needs no 
introduction to members of this committee.
    I am proud that the State of Indiana and the city of Indianapolis 
have produced an experienced and capable threat reduction and 
deterrence expert, and a longtime member of the staff of this 
committee, Madelyn Creedon. I support her nomination, and I am proud to 
recommend this distinguished Hoosier to the committee today.
    This is not the first time I have had the privilege of providing my 
support for Madelyn, and if confirmed, it will not be Madelyn's first 
time to serve in the executive branch in a Senate-confirmed position. 
In April 2000, I was pleased to express my support for her to this 
committee as the President's nominee to be Deputy Administrator of the 
National Nuclear Security Administration (NNSA) for Defense Programs.
    Before and after Madelyn's work at the NNSA, she has worked on the 
staff of the Armed Services Committee. Her work on both the 
Subcommittees on Strategic Forces and Emerging Threats of this 
committee is well known to all members. She has worked extensively on 
efforts to strengthen and improve threat reduction programs in the 
Former Soviet Union, including the Nunn-Lugar Cooperative Threat 
Reduction (CTR) Program. Indeed, I first encountered Madelyn when she 
was working for my colleague Sam Nunn, the former distinguished 
chairman of this committee. If confirmed she will play a vital role in 
the globalizing of the Nunn-Lugar Program to new countries in her 
capacity as the Assistant Secretary for Global Strategic Affairs. If 
confirmed, I look forward to hearing from her on a regular basis on the 
progress of these new efforts.
    Mr. Chairman, let me mention my interest in the growing importance 
of the Department of Defense (DOD) programs over which she will preside 
and thus the growing importance of this position.
    Over 2 years ago, the National Academy of Sciences issued a report 
urging DOD to enlarge the Nunn-Lugar Threat Reduction Program beyond 
the states of the former Soviet Union to address newly emerging threats 
posed by weapons and materials of mass destruction. The report 
identified the need for the CTR Program to be made more flexible, more 
agile, and prepared to move more quickly if it were to be successful in 
its application outside the states of the former Soviet Union.
    Yet despite the Academy's recommendations, despite the enactment of 
new legislation to provide the program with authorities to operate 
outside the former Soviet Union, and despite new Presidential policy 
directives including the Global Nuclear Lockdown strategy and the 
release of PPD-2 on the threats posed dangerous biological pathogens, 
the current pace of the work to meet these goals suggests that the 
President's objectives are unlikely to be met. These are part of the 
challenges facing our nominee should she be confirmed.
    I appreciate the need to ensure that CTR forms of assistance are 
used appropriately to reduce WMD threats, that our partners can absorb 
and sustain the assistance, and that the actions of the U.S. Government 
are coordinated and effective. But I am concerned that endless rounds 
of administration coordination and planning meetings, of certifications 
and determinations, have resulted in paralysis, not progress, to the 
point where critical threat reduction and national security 
opportunities may be forfeited.
    The path to globalizing the CTR program beyond the original states 
of the former Soviet Union is open. The program is well positioned to 
enter a new phase of global security engagement; it has the authority 
and direction. What has been missing is the political and bureaucratic 
will to move forward with implementation. Indeed, I would suspect that 
one of the major challenges facing our nominee will be to work in close 
cooperation with the implementers of Nunn-Lugar Global Security 
Engagement to make each program as effective as possible.
    Lastly, Mr. Chairman, many committee members will recall the slogan 
associated with NATO expansion: namely, out of area or out of business! 
The same may be said with regard to the CTR program, as efforts are 
undertaken to expand the original program to meet the threats of 
weapons of mass destruction no matter their type or origin or 
geographical location. Two factors have led DOD to identify the 
importance of taking the CTR program to Africa: namely, the growing 
concern over bioterrorism and the natural prevalence of lethal 
pathogens in African nations.
    Indeed, terrorist activity on the African continent is a growing 
concern. Africa Command, the U.S. military command responsible for 
engagement in Africa, described the threat in its 2010 Posture 
Statement this way: ``In the last year, al Qaeda and terrorist groups 
in Africa appear to have strengthened their collaboration. Al Qaeda 
operatives are active in East Africa. The leaders of Somalia-based al 
Shabaab have publicly aligned themselves with al Qaeda . . . al Shabaab 
continues to operate multiple terrorist training camps in Somalia with 
al Qaeda participation.''
    The CTR Global Security Engagement program in Africa that our 
nominee will inherit is designed to help secure vulnerable facilities, 
promote cooperative research and transparency in handling dangerous 
pathogens, and help build an ``early warning system'' capable of 
quickly detecting, diagnosing, and reporting infections to help 
determine if they are natural or manmade and stop their spread.
    Last November, I invited several members of Madelyn's staff-to-be 
in the Pentagon to join me in a visit to East Africa, particularly the 
states of Uganda and Kenya, to look into the interface between 
biosecurity and public health issues and the means by which the Nunn-
Lugar Global Security Engagement program might help to contain this 
threat.
    With their proximity to the Middle East and large swaths of weakly 
governed lands like Somalia, biological virus and bacteria research 
facilities could be attractive targets for terrorist groups or black-
market traders. Moreover, public health boosts are important benefits 
to future security work of CTR Global. Along with humanitarian interest 
in helping to prevent disease, such cooperative efforts to quickly 
detect, diagnose, and report dangerous infections are critical to 
stopping global pandemics.
    Our nominee will be required to practice all of her diplomatic 
skills in mentoring these programs in Africa. The CTR program is 
building on relationships established by the Center for Disease Control 
and U.S. Army Medical Research Units to work with these laboratories as 
additional security and shared scientific research is performed. The 
intersection of public health issues with bioterrorism concerns will 
test the mettle of our nominee.
    The selection of Madelyn to lead policy efforts in Global Strategic 
Affairs is a good one. Despite the broad nature of the policy areas she 
will oversee--including countering weapons of mass destruction, nuclear 
forces, missile defense, cybersecurity and space issues--she will be 
asked to ensure that the bedrocks of the CTR and Global Security 
Engagement components of our future counter-proliferation efforts are 
not left to bureaucratic drudgery and interagency inertia. I know she 
understands that effective program execution relies on the 
collaboration of both the policy and implementation functions of DOD.
    For all of these reasons, Mr. Chairman, I strongly support her 
nomination. Thank you.

    Chairman Levin. Thank you so much for that introduction. It 
is very important to us and very important to Madelyn Creedon 
as well.
    We also know you have an important scheduling commitment to 
keep. You are free to leave, of course, as you wish.
    Thank you so much, Senator Lugar.
    We are delighted Senator Bingaman has joined us this 
morning. Formerly a member of this committee, he is the 
chairman of the Senate Energy and Natural Resources Committee.
    We are counting on him to give us some more progress in the 
area of energy independence this year. But for this morning's 
purpose, he really is well-acquainted with Madelyn Creedon. We 
would call upon you, Senator Bingaman.

STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM THE STATE OF 
                           NEW MEXICO

    Senator Bingaman. Yes, Mr. Chairman, thank you for letting 
me take just a couple of minutes to heartily endorse the 
nomination of Madelyn Creedon for this important position as 
Assistant Secretary of Defense for Global Security Affairs.
    I know this committee knows her work extremely well. She 
has been a stalwart of the professional staff on this 
committee, essentially during all the time that I served here 
and for many, many years.
    Some of that work was interrupted when she was Deputy 
Administrator for Defense Programs at NNSA, when it was first 
formed. She was also Associate Deputy Secretary of Energy for 
National Security Programs and General Counsel to the Base 
Closure and Realignment Commission.
    She has had broad experience in the executive branch as 
well as here in Congress, knows these issues extremely well, as 
all of us have come to realize.
    Most of my interaction with Madelyn has been in connection 
with the nuclear deterrent issues that come into play at our 
two national laboratories in New Mexico, Los Alamos and Sandia. 
But I know she is extremely well-informed as to the importance 
of maintaining the nuclear deterrent, also extremely well-
informed on the international situation.
    I have had the good fortune to travel with her to Russia. I 
know she has traveled there and many other parts of the world 
extensively in the time she has worked here on the committee 
staff.
    I heartily recommend her, and I think the President should 
be complimented for an excellent choice.
    Chairman Levin. Thank you so much, Senator Bingaman, for 
your very important and useful introduction of Madelyn Creedon.
    Now we will call upon our nominees for their opening 
statements. We will first call on Ms. Creedon.

  STATEMENT OF MADELYN R. CREEDON, NOMINATED TO BE ASSISTANT 
       SECRETARY OF DEFENSE FOR GLOBAL STRATEGIC AFFAIRS

    Ms. Creedon. Chairman Levin, Senator McCain, all the 
members of the Senate Armed Services Committee, it is a 
pleasure to be here this morning.
    I would also add that, as a long-time member of the 
committee staff, it is a little strange to sit on this side of 
the dais.
    Thank you, Senator Lugar, Senator Bingaman, for your kind 
and supportive words. Senator Lugar's leadership, along with 
that of former Senator Sam Nunn, at a time of great 
uncertainty, resulted in the establishment of the CTR program, 
which continues to be the keystone of the global proliferation 
prevention programs.
    Senator Bingaman has been a leader in emphasizing the 
importance of research and development and has supported all 
things nuclear. It has been a particular honor for me to have 
been able to support their goals.
    I am grateful for and humbled by President Obama's decision 
to nominate me to be the Assistant Secretary of Defense for 
Global Strategic Affairs. I would like to thank Secretary 
Gates, Secretary Panetta, Deputy Secretary Lynn, Under 
Secretary Flournoy, and Deputy Under Secretary Jim Miller for 
their support.
    If confirmed, I will be honored to serve as the Assistant 
Secretary of Defense for Global Strategic Affairs.
    I would also like to thank my family for both supporting me 
and putting up with me over the last 30 years of my government 
service. I am proud to have with me this morning my husband and 
partner in all things, Jim Bracco, and our daughter and son-in-
law, Meredith and Mike Walsh. Our son, John Bracco, lives in 
Atlanta and could not be here this morning.
    I would also like to acknowledge my parents, Marilyn and 
Dick Creedon, who live in Indianapolis, and who were also not 
able to be here this morning. Their devotion to charitable and 
public service, including my father's over 30 years as an Army 
Reserve officer, has always inspired me to do more.
    The position of Assistant Secretary of Defense for Global 
Strategic Affairs covers a range of complex and often 
controversial issues, including nuclear deterrence, missile 
defense, countering WMD, space, and cyberspace.
    If confirmed, I will work to ensure that the new policies 
and strategies that have been developed in these areas are 
implemented thoughtfully, expeditiously, and in a cost-
effective manner. Most importantly, I would work to ensure that 
all the policies in these areas continue to support U.S. 
leadership and advantage.
    One of the most difficult of the policy areas in which I 
will work, if confirmed, is the area of cyberspace. Cyberspace 
presents new and unique challenges, as cyber capabilities are 
an integral part of almost everything we do personally, 
professionally, and as a country.
    Cyberspace provides both an advantage and a vulnerability. 
As the first man-made domain, it has no natural, geographic, or 
other boundaries, and few historic precedents. There are lots 
of questions, however, that, if confirmed, I would hope to 
begin to address.
    In closing, I have to thank all of the members of this 
committee on both sides of the aisle. If confirmed, I will have 
to leave the staff of this committee. While I look forward to 
the new challenge, it will be very difficult to leave.
    I hope that I will be able to continue to work with all the 
members and all of the great personal and committee staff in 
the same bipartisan way that this committee has always worked.
    Finally, Senator Levin, your leadership, endless hard work, 
and dedication to the men and women in Military Service are 
unequaled. It has been a pleasure, an honor, a privilege, and 
great fun to work for you.
    Thank you.
    Chairman Levin. Well, thank you for that great 
introduction. [Laughter.]
    We will miss you for many, many reasons, as I said.
    Mr. Estevez, you are next.

    STATEMENT OF ALAN F. ESTEVEZ, NOMINATED TO BE ASSISTANT 
   SECRETARY OF DEFENSE FOR LOGISTICS AND MATERIEL READINESS

    Mr. Estevez. Chairman Levin, Senator McCain, distinguished 
members of the committee, I appreciate the opportunity to 
appear before you today.
    I am grateful for the confidence that President Obama has 
shown in me by nominating me to be the Assistant Secretary of 
Defense for Logistics and Materiel Readiness.
    I also want to thank Secretary Gates, Secretary Panetta, 
and Under Secretary Carter for supporting my nomination.
    I want to thank my family for their support, and I am happy 
to say that my wife, Susan Pearson, is here with me today. I 
want to thank her for her support, counsel, and understanding 
she has provided me over the last 8 years.
    I would also like to note that my father, who was a career 
Army officer and subsequently a teacher, and my mother spent 
many years in civil service. While they are both now deceased, 
they instilled in me the values that have led me to this point 
in my career, and I know that they would be proud.
    Having served for over 30 years in the government, the last 
several in the position of the Principal Deputy Assistant 
Secretary of Defense for Logistics and Materiel Readiness, and 
having made numerous trips to visit our men and women who are 
deployed in harm's way, I know firsthand how important it is to 
provide critical logistics support to our forces deployed in 
Iraq and Afghanistan.
    I had the opportunity to visit our forces in Afghanistan 
last month and saw how our ability to deliver and sustain key 
items--ranging from mine-resistant ambush-protected (MRAP) all-
terrain vehicles to aerostats--have improved our force 
protection and our warfighting capabilities.
    I appreciate that the President and Congress are working to 
ensure that the Department's equipment is being properly 
sustained, maintained, and reset to overcome the wear and tear 
and damage that are a result of our ongoing combat operations. 
I am hopeful that my words here today will show my continued 
dedication toward implementing a comprehensive end-to-end 
logistics strategy that provides effective support to our 
warfighters and provides value to the American taxpayers who 
pay for that support.
    In closing, I am deeply humbled and honored by this 
nomination. If confirmed, I will do my best to continue to 
provide quality support to the men and women of our Armed 
Forces while keeping a focus on affordability.
    Thank you.
    Chairman Levin. Thank you, Mr. Estevez.
    Let me now ask you both the standard questions that we ask 
of all of our nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Ms. Creedon. I have.
    Mr. Estevez. I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ms. Creedon. No.
    Mr. Estevez. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Ms. Creedon. I will, yes.
    Mr. Estevez. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Ms. Creedon. Yes.
    Mr. Estevez. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ms. Creedon. Yes.
    Mr. Estevez. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Ms. Creedon. Yes.
    Mr. Estevez. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good-
faith delay or denial in providing such documents?
    Ms. Creedon. Yes.
    Mr. Estevez. Yes.
    Chairman Levin. Thank you.
    Why don't we try a 7-minute first round for questions, and 
if we need it, we will have, I am quite sure, an opportunity 
for a second round.
    Let me start with you, Ms. Creedon, on the issue of 
proliferation of WMD. Do you see any opportunities for reducing 
the dangers of that proliferation?
    Ms. Creedon. I do, sir. There has been an awful lot of work 
done under the CTR programs, both at DOD and the Department of 
Energy, and a lot of progress has been made.
    There has been a tremendous amount of progress in securing 
materials at their source. There has been a lot of progress 
made in what is referred to as the second line of defense, and 
that is developing mechanisms and capabilities to detect 
materials if they should be stolen or if they should be removed 
from where they are supposed to be and if they are trying to be 
transported across borders. There is a lot of work going on to 
enable other countries to facilitate and recognize when there 
are materials in transit.
    There is a lot of work that has been done, but there is a 
lot of work that is left to be done. A good part of that is 
dealing with not only the rogue elements who want to steal 
either weapons or materials, but also the broader issue of 
proliferation by state actors.
    There is a lot to be done. But I do think there is hope. I 
think the initiative to secure vulnerable, usable nuclear 
materials--materials that could be used in a nuclear weapon--in 
4 years is a good goal. Whether we meet it or not really 
depends on the cooperation of the international community, but 
it is a good goal.
    So I do think there is hope.
    Chairman Levin. On the cyberspace issue, Senator McCain 
made strong reference to the need for progress in this area. 
You, in your opening comments, likewise made reference to it.
    General Cartwright, in an interview last week, advocated a 
change in strategy from an emphasis on defense to an emphasis 
on offense, some form of retaliation to deter attacks. I am 
wondering whether you are in a position yet that you have an 
opinion on this issue as to whether we need to change the 
emphasis from defense to at least being able to threaten 
retaliation, to be in a position to retaliate in order to deter 
these growing number of attacks?
    Ms. Creedon. I have heard General Cartwright talk on this 
topic before, and I know that one of the issues is that right 
now our capabilities really are limited to defense. One of the 
areas where over time--and I don't know how to define ``over 
time,'' but probably some years possibly--that we need to shift 
from a mostly defensive position.
    General Cartwright has indicated that in his view it is 
about 90-10 right now, that we need to shift from a mostly 
defensive position to something where you also have at least 
50-50 on the part of the U.S. Government and probably on the 
part of DOD something that looks like 90 percent offense and 10 
percent defense.
    But it is one of those longer-term goals, as we understand 
more about this problem and how to deal with more active 
defenses, how to deal with more offensive capabilities.
    Chairman Levin. Mr. Estevez, let me ask you a couple of 
questions about Afghanistan. What kind of additional steps can 
we take to reduce our logistical footprint, either through 
improvements in energy efficiency or the increased use of 
renewable sources of power such as solar and wind?
    The dangers to our troops, the losses of lives which are 
involved in protecting these shipments of energy into 
Afghanistan, the huge cost of that energy in lives and in 
treasure, I think, require us to look for ways to reduce the 
logistical footprint for energy. Apparently, 80 percent of our 
ground convoys are dedicated to carrying just fuel and water. 
What would be your thoughts on that?
    Mr. Estevez. There are a couple of things we can do, and we 
are teaming up with Sharon Burke, who is the Assistant 
Secretary of Defense for Operational Energy Plans and Programs, 
on those things. When we look at things like our contract for 
sustainment of our bases, the Logistics Civil Augmentation 
Program, and what we need to do is require fuel-efficient 
generators, we need to ensure that we are putting up fuel-
efficient housing, the containerized housing that we put up, 
that would reduce our energy footprint.
    We are doing some tests on things like solar power out on 
the battlefield, which in certain areas of Afghanistan could 
work. Obviously, a number of gallons of our fuel go to our 
mobility assets. Those are longer-term issues to deal with. But 
in the near term, working on our base infrastructure, our 
deployed base infrastructure can reduce our energy consumption 
on the battlefield, reducing our convoys to sustain that.
    Chairman Levin. It is an area that we need to pay much 
greater attention to. I know there has been attention paid to 
it, and it is not a new issue. But it is a huge issue.
    We hope that when you are confirmed, that this will be one 
of the first items on your agenda to look at. There is 
potential for huge progress here, and the costs have been 
incredible.
    Now, Mr. Estevez, if the Government of Iraq were to ask for 
the continued presence of U.S. forces beyond the end of this 
year, assuming they made that request and if we agreed to such 
an extension, either as requested or modified, what would be 
some of the more important logistical complications associated 
with interrupting our withdrawal and adjusting to some kind of 
a limited extension?
    Mr. Estevez. U.S. forces in Iraq right now have multiple 
plans based on those scenarios. Obviously, as we close bases 
and we remove our presence in those bases, going back to those 
bases would be difficult. We do have certain tripwires on 
those, and we do have alternatives to those plans.
    As we are moving equipment out, having to return that 
equipment back to Iraq would also be a logistics ripple. 
General Austin is holding forces back in Iraq right now. Again, 
it will be in the fall where those tripwires start to hit, 
which would increase our difficulty.
    We also have contracts that are drawing down for 
sustainment of food and fuel, base support in Iraq. We can turn 
the volume on those contracts back up. They are drawing down 
now.
    Most of those contracts will remain in place to sustain the 
Department of State presence in Iraq, as well as our foreign 
military sales and advisory presence. So it will be just 
extending those contracts and increasing the numbers that they 
support.
    Chairman Levin. You say General Austin was holding back 
forces?
    Mr. Estevez. Our drawdown plan starts in the fall, so late 
August, early fall. He has that ramp-down plan based on our 
current scenario.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Again, congratulations to the nominees.
    Mr. Estevez, in your answer to the advance policy 
questions, you stated you have, ``also worked extensively with 
the commercial sector to understand best logistic practices 
across a wide range of industrial and commercial activities.'' 
What have you learned that DOD isn't doing?
    Mr. Estevez. When you look at some of the best commercial 
places--use a Wal-Mart----
    Senator McCain. Best Buy, Home Depot, all of the major 
retailers.
    Mr. Estevez. Yes. Right. Of course, they are in the retail 
business. So it is not exactly a match for us, but the way 
they----
    Senator McCain. But it is a match from getting much-needed 
whatever it is from one place to another in the most efficient 
fashion.
    Mr. Estevez. That's correct, Senator.
    Senator McCain. Go ahead, please.
    Mr. Estevez. Seeing how they collaborate with their supply 
base to understand what the demand and the forecast would be, 
they do that much better than we do. We are trying to copy 
their ways of doing that.
    They use third-party logistics more extensively than we do. 
They select where and how to do that. We have also implemented 
some of those practices.
    Senator McCain. For example, what practices? It is my 
understanding that these major entities that we discuss, they 
somehow are able to identify a need, and within a matter of 
hours, that particular need or requirement is fulfilled. The 
efficiencies is what makes them far more cost-effective as 
compared with smaller commercial enterprises is what I am 
trying to get at.
    What do we do in the Defense Department to emulate that?
    Mr. Estevez. They have the ability to shape demand that we 
can't. They have sales, and they can offer things. But we do 
have----
    Senator McCain. Maybe we need some sales. [Laughter.]
    Mr. Estevez. But we do need a better predictive capability. 
We need to work closer with our industrial base on them 
understanding what we are consuming so that they can provide 
that in advance. We are doing some of that. We need to do 
better, Senator.
    Senator McCain. I hope so. Because one of the recurrent, 
not complaints, but voiced requirements, that I hear in places 
like Kabul, Baghdad, Kandahar, and other places is that there 
is a significant delay. If they have to consume a certain 
amount of whatever they have, whether it be ammunition or food 
or whatever, unforeseen consumption of what they have on hand, 
that there is still, in their view, too long a delay.
    I am sure they would like to have it instantaneously, but I 
think that we might look again at what commercial enterprises 
do to react as quickly as they do.
    Ms. Creedon, as I mentioned earlier, General Cartwright 
said that DOD is spending 90 percent of its time playing 
defense against cyber attacks and 10 percent playing offense 
and that, in his view, the Department should invert this ratio 
to demonstrate there will be consequences to a cyber attack 
against the United States.
    To start with, do you agree with General Cartwright?
    Ms. Creedon. I do, sir, and he said over time that is where 
the Department has to be.
    Senator McCain. Give me an example of what the consequences 
would be, for example, of a cyber attack that shut down our 
defense logistics system in some way.
    Ms. Creedon. One of the things that he put in this context 
was that the constant building higher defenses, it becomes more 
and more expensive. The attacks are inexpensive, and the 
defenses are more expensive.
    So one of his constructs, and although he conceded that it 
was in a very hypothetical construct, is that someday we have 
to figure out that right now the attack just causes us to spend 
more money on defenses. What he is trying to say is that at 
some point, we have to make it clear that that attack, in fact, 
there is more to that attacker to pay than there is to us to 
pay for the higher defense.
    Senator McCain. I fully understand that. Now, what is the 
consequence?
    Ms. Creedon. How to get there is hard. Part of this is, 
like any other thing, you have to look at, what is the attack? 
What was the result of the attack? Then----
    Senator McCain. Well, I just gave you an example. What 
would be the consequence?
    Ms. Creedon.--and act appropriately on something like that. 
So, it doesn't----
    Senator McCain. What would be an appropriate action?
    Ms. Creedon. It wouldn't necessarily have to be a cyber 
attack. You also have the problem of figuring out who did it.
    Senator McCain. Will you give me an answer as to what the 
consequences would be?
    Ms. Creedon. For instance, on something like that, if we 
knew who did it, it could be something that would deal with 
their ability to attack us further. So it could be a response 
in cyber. Maybe it is taking out some of their computer 
systems.
    It depends on where they are. It depends on who is behind 
it. It could be a land-based attack. But again, it would have 
to be modulated based on the time, the duration, and the 
impact.
    Senator McCain. Thank you.
    Would you agree, now that you are free from your tenure 
here, that Congress, as much as we would like to hear from DOD 
and we like to hear proposals, as I just talked to you about, 
Congress really doesn't have its act together on this issue, 
for a variety of reasons, including the proliferation of 
committees of jurisdiction.
    Would you agree with that assertion that we really haven't 
been able to address it effectively, not because of lack of 
dedication of members, but simply the way the Senate functions?
    Ms. Creedon. I don't think anybody is unique in this. It is 
very new. It is very difficult, and it is very uncertain. Over 
time, again, I think there is going to have to be a lot of 
rethinking on how everybody addresses these issues.
    Far be it from me, after a lot of years up here, to try and 
either explain or understand or suggest how Congress should 
act, because in the end, it does always seem to get to the 
right conclusion.
    Senator McCain. It does?
    Ms. Creedon. I think, by and large, it does. But it is just 
sometimes really hard to get there.
    Senator McCain. But you would agree that because of cross-
jurisdictional situation, that it makes it a little more 
difficult?
    Ms. Creedon. It does.
    Senator McCain. There is inherent sometimes competition 
between the committees for jurisdiction, which really should be 
resolved in one way or the other.
    Ms. Creedon. This is true.
    Senator McCain. I congratulate both of you on your 
nominations, and we look forward to confirming you as rapidly 
as possible.
    Thank you. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Let me add my congratulations to our two nominees as well, 
and a very special thank you to Ms. Creedon for her support for 
the Strategic Forces Subcommittee, which I have been honored to 
chair.
    The responsibilities that you have helped me with include 
nuclear and strategic forces, ballistic missile defense, 
intelligence programs, space programs, information warfare 
programs, and Department of Energy defense-related nuclear and 
environmental programs, as you have led professional staff on 
these issues. It really is no surprise that your immense 
experience, knowledge, and expertise in these areas have 
resulted in your nomination to this extremely important 
position.
    If confirmed, you will be advising the Secretary of Defense 
on policy and strategy in these areas, and you have already 
mentioned cyberspace and countering WMD. It doesn't seem like 
much of a stretch for me that you would go from the Senate to 
DOD to work on this.
    From your work on the Strategic Forces Subcommittee, I have 
no doubt that, if confirmed, you will work to develop and grow 
the relationships and knowledge necessary to provide policy 
guidance on these multitude of issues. It is no exaggeration 
that, if confirmed, we are going to miss you as well on the 
Strategic Forces Subcommittee.
    But I hope that, as I support your nomination, in spite of 
the fact of losing you in that position, we will be able to 
look forward to continuing our relationship once you take over 
these responsibilities.
    Both Senator John McCain and Senator Carl Levin have 
mentioned cyber. Given the fact that we have learned about the 
cyber leak most recently, obviously it is one of the most 
important things, and it is in the forefront of our minds about 
how do we begin to deal with this.
    It is perhaps a little bit unfair to ask you what your 
plans are to deal with this at this point in time, but if 
confirmed, do you have any initial thoughts about how we get to 
the bottom of what causes the leaks and what to do to prevent 
the leaks?
    Whether it is offense or defense, the first thing that we 
need to focus on is how do we get control over our cyber 
opportunities so that they don't become opportunities for our 
adversaries?
    Ms. Creedon. Thank you, Senator Nelson, and thank you for 
your kind words as well.
    The issue of cyberspace is incredibly complicated, 
obviously. From where I sit right now, I really have been on 
the receiving end of various briefings on what exactly these 
instances lately have been. RSA, the little secure token 
company, that is one of the most recent ones.
    But in looking at how to address these in the future, it is 
very clear that this is going to take lots of entities, 
including the private sector. The Defense Industrial Base Pilot 
is a good example of a good place to start, frankly, on how 
both government and industry have to work together to figure 
out how to both stop and counter these attacks.
    DOD is heavily reliant on commercial systems for much of 
what they do. It is absolutely essential that not only 
government resources be brought to bear, but also the 
commercial things.
    If I am confirmed, one of the things that I want to really 
dig down into and understand is what are the relationships that 
exist right now in the commercial sector? What are the 
commercial capabilities? What are the defensive capabilities 
that exist in the government? Where are the possibilities to 
bring these two things together?
    So that you don't have seams between the government 
approach and the industry approach, and really try to 
understand how this becomes an integrated function because, as 
we have discussed, this is not a geographically-constrained 
domain.
    A lot of times you can't even tell who the attacker is or 
where the attacker is coming from. Sometimes you can, and then 
it also is very hard to sort out even when it is state 
sponsored. Is it a terrorist? Is it a criminal? What is the 
motivation? What drove this?
    It is a complicated subject. I look forward to getting into 
it.
    Senator Nelson. It is very clear that our enthusiasm for 
cyber and for the benefits that we receive from being able to 
transmit information in the manner that we have been able to do 
it so effectively and efficiently has gotten us a little ahead 
of ourselves in terms of being able to protect that very 
important process at the same time as we have expanded it.
    We didn't build the firewalls that we would ordinarily 
build in the transfer and transmittal of information. Whether 
it is WikiLeaks or whatever it is, we have to tighten our 
capabilities of our controlling the very vital information that 
we have, military and national security data, so that this sort 
of attack can't occur. If we can firewall our information, then 
we are going to be less concerned about whether we take 
offensive means or otherwise because there won't be any need if 
we can get ahead of our adversaries.
    I hope that as you assume this position, if confirmed, that 
you will find ways to make certain that all the users are as 
enthusiastic about building the protection as they are about 
using the procedures that are there so easily available to pass 
information on from one group to another or to retain it for 
future use.
    If we don't do that, then I am in favor of going back to 
vaults and paper and the old way of doing things because that 
is one thing that you potentially, at least visually, can see 
you have some control over. The problem is we don't have the 
visual control over cyber.
    I wish you well in the new position. I hope that the Senate 
will act rather promptly to confirm both of you in your new 
positions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to congratulate both of you on your nominations, and 
very much appreciate your service, both to this committee and 
also in DOD.
    I want to ask Mr. Estevez about our Guard and Reserve 
because clearly in the conflicts that we have been engaged in, 
we have been using the Guard and Reserve as an operational 
force. Yet not all DOD systems and budget decisions have 
necessarily evolved to that place of where we are in terms of 
using the Guard and Reserve.
    A recent National Guard and Reserve equipment report found 
major item shortages for the Guard and Reserve. Despite some 
very important investments in modernization and maintenance, 
some Guard units still don't have sufficient equipment on hand 
to properly train or respond to domestic contingencies.
    If you are confirmed, I wanted to get your thoughts on 
where we are with respect to equipment to train and maintain 
readiness for our Guard and Reserve and how you expect to work 
on those issues going forward, given what we have asked our 
Guard and Reserve units to do in the conflicts we have been 
involved in.
    Mr. Estevez. The Guard and Reserve, as you noted, Senator, 
are part of our holistic force. They are part of the total 
force that we have out there.
    We are working to ensure that they have the same equipment, 
at the same level of readiness, as the Active Force. Certainly, 
any force that is deploying has the equipment that they need to 
deploy with or they are falling in on equipment in Afghanistan 
or Iraq, depending on where they are going, just as the Active 
units do. They don't bring their equipment anymore. They fall 
in on equipment.
    We do have work, as we rotate equipment around in the rear 
base, in the training base, and at home station, to ensure that 
people have that, and they do get in that training. We do have 
equipment, of course, that is forward deployed that will 
eventually come back, and that will be distributed to make the 
force whole again at the return.
    In the meantime, we are working hard to fill those gaps and 
ensure that we do have correct response capability for domestic 
incidents.
    Senator Ayotte. Thank you.
    I wanted to follow up on an issue that I have been 
concerned about as a new member of this committee. I realize 
that your position is really dealing with logistics, materiel 
readiness, and that is what you will be focused on.
    But as I have been on the Readiness and Management Support 
Subcommittee, one of the issues that I have seen time and time 
again is the issues we have had with procurement overall, 
particularly in weapon systems. We have spent $46 billion over 
the past decade developing weapon systems that ultimately were 
never fielded, due to cost overruns or technical challenges, we 
weren't able to bring forward.
    Given the difficulties we have right now in terms of the 
fiscal challenges that our country faces, I wanted to get your 
thoughts on how we could improve the procurement process. 
Because I have also been very troubled by some of the terms 
that we agree to in the contracts that we have been involved in 
that aren't as beneficial as I think they should be to our 
interests.
    Mr. Estevez. As you note, as the logistician of the 
Department, that is not my main focus. However, I do have the 
pleasure of working with Dr. Carter and Mr. Kendall, the Under 
Secretary for Acquisition, Technology, and Logistics and his 
Principal Deputy, who have a major focus on that.
    Dr. Carter is leading a major effort inside the Department 
called Better Buying Power, which is full-focused on improving 
the way we buy. Part of that is looking at the requirements so 
that we go into the process knowing that we can achieve the end 
result of getting the capability we are trying to buy.
    As the logistician, I have a full seat at the table on 
that, and looking to ensure that what we buy is sustainable and 
affordable in that sustainment over the course of its life 
cycle. Frankly, 70 percent of the cost of an acquisition tends 
to be after the acquisition takes place in sustaining that 
piece of equipment over time.
    Senator Ayotte. In the maintenance costs?
    Mr. Estevez. Yes, ma'am.
    Senator Ayotte. I would ask you, as you have that seat at 
the table, if there are issues that you see that you think we 
can help here to give you better tools so that we can improve 
that procurement process, would you let us know? I think that 
is very critical, given the fiscal challenges that we are 
facing. We can't continue to pour money into either weapons 
systems or other equipment that isn't going to serve its 
purpose.
    Mr. Estevez. I agree, ma'am.
    Senator Ayotte. Thank you.
    Ms. Creedon, I wanted to ask you about a statement. I 
wanted to ask you about our nuclear force levels.
    Tom Donilon announced on March 29 that the administration 
would be preparing for the next round of nuclear reductions. 
DOD will review the strategic requirements and develop options 
for further reductions in our current nuclear stockpile.
    One of the issues that I wanted to ask you about is if we 
go below the New START force levels, that may require 
significant changes to the U.S. force structure, nuclear 
weapons, targeting guidance, and the nuclear doctrine. None of 
these changes, in my view, should be taken lightly.
    I believe that we need to take serious caution before the 
administration makes a commitment to further reductions below 
New START force levels, especially since recently General 
Chilton, the Commander of U.S. Strategic Command, told the 
Senate during its consideration of the New START treaty that, 
``The arsenal we have is exactly what is needed to provide the 
deterrent.''
    Ms. Creedon, can you assure this committee that in your 
capacity as Assistant Secretary for Global Strategic Affairs, 
that you would help ensure that DOD conducts its strategic 
assessment in a manner consistent with our interests, rather 
just in the pure pursuit of reductions for the sake of 
reductions? Because my concern is that it is very important 
that we maintain a proper deterrent.
    Ms. Creedon. Yes, Senator, I agree.
    As the START treaty comes into effect, it is going to take 
about 7 years before all of the reductions, even under the 
START treaty, have been implemented. Yes, Senator, I will 
assure you that as, if I am confirmed and as I undertake this 
new responsibility, that I will make sure that as we review our 
deterrent, we will always make sure that the deterrent is safe, 
secure, reliable, and adequate to meet our national security 
requirements.
    Senator Ayotte. If we were to be in a position where we 
lower our nuclear force levels to a point where the assurances 
to our friends and our nuclear deterrence in terms of our 
enemies began to be called into question, what would be the 
impact, in your view, of that if we didn't take that seriously?
    Ms. Creedon. I absolutely agree with you. We do need to 
take that very seriously. Frankly, from my perspective here, I 
don't see that as part of any of the policy documents that have 
been outlined by the Department.
    Certainly, in the Nuclear Posture Review, which is, at this 
point, the overarching policy document for the administration, 
that document is very clear that we will maintain the triad, 
that we will maintain the stockpile at the current levels set 
out in the START treaty. That above all, we will maintain a 
deterrent, and it will be safe, secure, and reliable.
    It talked about the relationship with our regional allies 
and the importance of that extended deterrence and the 
importance of making sure that our allies are comfortable and 
that our deterrent is adequate to ensure that comfort level. 
Because if it is not, one of the concerns, obviously, that has 
long been out there and long been a worry is that if we are not 
adequately providing that regional comfort, that it could drive 
others to seek independent nuclear capabilities, which is 
clearly not where we want to head.
    Senator Ayotte. I couldn't agree more.
    Thank you both. I appreciate your testimony, and I look 
forward to your confirmation.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Let me add my thanks for your service, both of your service 
in the past, and congratulations on your future. I join in 
hoping that your confirmations will be prompt.
    I would like to ask Mr. Estevez a question about delivering 
power and fuel to our troops in the field. I know that you are 
aware, we all are, of the potential for fuel cell technology, 
which is a particularly important product in the State of 
Connecticut, to be used more frequently and in greater volume 
in the field. Is that correct?
    Mr. Estevez. I am not an expert on fuel cell technology. 
But, yes, sir.
    Senator Blumenthal. I would like your assurance that you 
will, in fact, focus on fuel cell technology and its potential 
uses in delivering energy sources to our troops in the field.
    Mr. Estevez. To the point that Senator Levin made opening 
up, reducing our energy consumption on the battlefield is a 
force multiplier for us. It gives us more flexibility. We will 
certainly be looking at all capabilities to do that, including 
fuel cell technology, Senator.
    Senator Blumenthal. I think there are also opportunities 
for improving the efficiency of the existing capability that we 
have. I know that as the drawdown occurs in Afghanistan, we are 
going to be bringing back to this country many of the micro-
generators that rely now on diesel, and there is a proposal or 
a plan to refurbish them, make them more efficient, link them 
in micro-grids.
    I am familiar with this plan because one of the potential 
companies that could be doing some of the work is located in 
Connecticut, DRS. The proposal, as I understand it, is to bring 
back those 12,000 generators, save 30 percent of their fuel, 
millions of dollars. The Army is finalizing those requirements. 
Are you familiar with that plan?
    Mr. Estevez. I am not, but I could certainly look into 
that. The mix of generators that are out there on the 
battlefield are generators that we, the U.S. military, owns as 
part of unit equipment and generators that our commercial 
sustainers are helping us put on the battlefield to build 
capability. The mix will come back.
    Senator Blumenthal. If you could report back, if I could 
ask you, respectfully, to report back on how the Army will be 
finalizing those requirements, I would appreciate it.
    Mr. Estevez. I will do so, sir.
    [The information referred to follows:]

    The Department of Defense, and most notably the Army, has several 
initiatives aimed at improving the energy efficiency of its tactical 
power generation and distribution systems. For example, the Army has 
undertaken several efforts to design and evaluate micro-grids that save 
energy at fixed sites by better matching the production of power to 
required loads. The Army is also reviewing the specifications of its 
force provider systems--its deployable life support capabilities--in 
order to make them 30 percent more energy efficient than the current 
sets. The Army will accomplish this through enhanced power generation 
and distribution, improved shelters and appliances, systems that reduce 
water use, and the integration of renewable power sources. The Systems 
Integration Laboratory at Fort Devens, MA, is conducting side-by-side 
comparisons of existing equipment with new technologies, in a training 
environment with soldiers, in order to analyze and determine if the new 
technologies provide enhanced efficiencies and capabilities.
    Other ongoing energy efficiency initiatives include the Army's new 
generator program--the Advanced Medium-sized Mobile Power Sources 
(AMMPS)--which is presently going into production. The AMMPS generators 
consume 21 percent less fuel across the fleet than the Tactical Quiet 
Generators (TQG), and are between 100 to 500 percent (depending on 
size) more reliable than the TQGs. Because of these improvements, the 
Army is working to accelerate production and fielding of the new AMMPS 
to replace the TQGs currently used in Afghanistan.
    The Department's intent is to maximize the life of its equipment 
and provide economical upgrades that offer the best return on 
investment for taxpayers' dollars, while providing energy savings 
across the battlefield.

    Senator Blumenthal. Ms. Creedon, if I could ask you, one of 
the points that particularly interested me in the exchange 
involving Mr. Lynn and General Cartwright in their recent 
briefing, concerned the issue of when a cyber attack becomes an 
act of war and when a proportional and justified military 
response is appropriate.
    The theft or disruption of 24,000 files seems to me to be 
an act of war if it is done by a nation against DOD. Would you 
agree?
    Ms. Creedon. Sir, I think that is one of the areas where 
the policy is very uncertain. Frankly, I have not delved into 
this enough. Even General Cartwright said a lot of the 
discussion really right now is based on theoretical constructs 
as to what really would constitute an act of war.
    Obviously, there are lots of other existing legal documents 
that define ``act of war''. But that is certainly one of the 
things that I am going to have to look at very closely, if I am 
confirmed.
    Senator Blumenthal. General Cartwright, I think, himself 
said that an act of war, to some extent, is in the eye of the 
beholder. But at the same time, there are rules, standards, and 
guidelines.
    From a 30,000-foot level, if another nation goes into our 
DOD and takes 24,000 files or disrupts our defense capability 
in some way, I think the average American would say, ``That is 
an act of war.'' Would you agree?
    Ms. Creedon. Sir, again, I don't have enough background 
right now from where I sit here on the committee to make that 
conclusion and to make that statement. But this has to be, I 
think, as we look at all these things, put in the context of 
anything else and looking at an act of war.
    Part of the difficulty in all this, too, is really 
understanding who that actor was. Was it a state actor? Was it 
somebody acting on behalf of the state? Is this criminally 
motivated? Is it terrorist motivated? It gets very complicated 
in sorting out the attribution as well.
    Senator Blumenthal. Are you satisfied that we have the 
means and capability to determine who the perpetrator was in 
these instances?
    Ms. Creedon. From what I have been briefed on at the staff 
level, I can only say that I think it is a very complicated and 
difficult question, and in not all instances do I think we 
fully understand that.
    Senator Blumenthal. Are you satisfied that on our side 
there is a clear division of responsibility between DOD, the 
Department of Homeland Security, and the Department of Justice 
since, as you have mentioned and others have, there is a law 
enforcement element here as well?
    Ms. Creedon. I think at a certain, 100,000-foot level, yes. 
The Department of Homeland Security has the dot-gov. DOD has 
the dot-mil. But to make it all work because even though, it is 
dot-mil, it also travels over commercial lines.
    To make it all work, it has to be much more coordinated and 
unified, and industry has to play a very large part in this. I 
think there is a lot of work to be done.
    Senator Blumenthal. Can you envision situations where a 
cyber attack on a utility or a bank or an Internet company 
could be interpreted as an act of war, if it is done by a 
nation to disrupt essential services or activities in this 
country?
    Ms. Creedon. This is one of those things that is really 
hard to speculate on in the abstract. But in the same way that 
if it were a kinetic attack, what would be the result? What 
would be the analysis? What would be the reaction to a kinetic 
attack that had a similar, if you would, effect, and how would 
we respond to that?
    I think at the moment we have to really look at these 
analogies and figure out, okay, just because it is cyber, is it 
different? If the bank were blown up, what is our reaction? If 
the bank is taken out by a cyber attack, what is our reaction?
    I think you have to look at these in the context of the 
effect as well as how it happened before you can make these 
decisions.
    Senator Blumenthal. My time is up. I know that I have 
nowhere near scratched the surface of these very complex and 
difficult issues. I do appreciate your very candid and 
forthright answers and your service, both of you.
    Thank you for being here and being willing to serve in the 
future as well. Thank you.
    Ms. Creedon. Thank you, sir.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator Brown is next.
    Senator Brown. Thank you, Mr. Chairman.
    Also, Ms. Creedon, thank you. First of all, congratulations 
to both of you.
    Just to follow up to Senator McCain's questions on 
cybersecurity. In testimony before the Senate Armed Services 
Committee earlier this year, General Alexander stated that he 
would give the military a ``C'' on its ability to defend DOD 
networks.
    Do you agree with his assessment? If so, what must be done 
in the near-term to improve the network defense?
    Ms. Creedon. Senator, I don't have any basis right now to 
disagree with that. I would have to really struggle to see if 
that is the case, although he is, given his position, in a good 
position to know.
    Senator Brown. If you find that when you are there, what 
would you, in fact, try to do?
    Ms. Creedon. I would certainly hope it is no worse. This is 
obviously one of those situations where I think whatever the 
grade is, it can always be better.
    As General Cartwright has said, or Deputy Secretary Lynn 
said, in the rollout of the new cyber strategy, we definitely 
need to get better. We, as a country, need to get better--not 
just DOD, but everybody needs to get better.
    Senator Brown. Section 934 of the National Defense 
Authorization Act for Fiscal Year 2011 required the Secretary 
of Defense to develop a cyber strategy and inform Congress on 
the policy for offensive and defensive operations by March 1, 
2011. Unfortunately, the strategy released last week fails to 
do so.
    If you are confirmed, do you intend to provide the 
requested answers to the comprehensive list of unanswered 
policy and legal questions regarding operating in cyberspace?
    Ms. Creedon. Yes, sir. I will certainly work on those, 
along with colleagues.
    Senator Brown. Finally, do you agree that irrespective of 
Russian objectives, the United States should remain committed 
to the continued development and deployment of the U.S. missile 
defense systems worldwide, including qualitative and 
quantitative improvements to such systems?
    Ms. Creedon. Yes, sir. I believe that is included in the 
administration's ballistic missile defense review and policy.
    Thank you.
    Senator Brown. Thank you.
    Mr. Estevez, the Center for Strategic and Budgetary 
Assessments has published its analysis of the fiscal year 2012 
defense budget. Are you familiar with that study, sir?
    Mr. Estevez. I am not familiar with that one specifically, 
but I am familiar with a lot of assessments of the budget 
ongoing right now.
    Senator Brown. That being said, the study commented--just 
to let you know a little bit about what it said--about hollow 
growth that has resulted from a whole lot of defense spending 
over the past decade without actually gaining in readiness.
    It concluded that it has happened for several reasons. Half 
of the spending over the past decade was unrelated to the wars 
in Afghanistan and Iraq. Personnel costs have grown. Personnel 
costs have grown, while actual end strength has remained flat. 
Cost of peacetime operations has expanded, while the actual 
pace has gone down. Acquisition costs have ballooned, while the 
actual inventory has become smaller and older.
    Do you agree that DOD is spending more, but not getting 
more?
    Mr. Estevez. I did read an article this morning that 
pointed out that we spent $46 billion and did not achieve the 
acquisition side. Without having read that whole report, I 
can't make an assessment of that.
    I do know that, and I responded to Senator McCain earlier, 
on the logistics side we do need to put a focus on driving down 
our costs and adapting best practices in order to sustain our 
warfighters.
    Senator Brown. Because, with the significant DOD cuts over 
the next 12 years, it is obviously very important. What do you 
suggest the Department can implement in the areas of readiness 
and logistics policies to prevent these cuts from hurting our 
readiness and creating conditions of the so-called hollow 
force?
    Mr. Estevez. As I cited to Senator McCain, we need to do 
better on managing our inventory and how we spend our 
inventory. We took $366 million out of the Program Objective 
Memorandum last year. I think that is a down payment. We can do 
better.
    In order to do that, we need to understand our forecast. 
What is going to break on weapons systems? What do we need to 
buy? Focus our buy, and we need to do better in collaborating 
with our industrial base as we do that.
    We can also look to best practices, like use of third-party 
logistics support. We are doing that in our transportation area 
now to lower our costs.
    Senator Brown. Ms. Creedon, just to get back to Senator 
McCain's follow-up, he says, ``Well, what would happen if''--
remember that question? He said, ``What would happen if that 
happened?'' He said, ``Yes, but what would happen?''
    Let me tell you what I would like to happen if we find 
somebody who is actually perpetrating a crime on the United 
States. I would like them to be held accountable. I would like 
them to be shut down. I would like them to get the maximum 
amount of penalties that are afforded by our laws.
    I think that is what he was looking for. Is that your 
position, if we find somebody, they should have the book thrown 
at them?
    Ms. Creedon. From a criminal perspective, which is 
obviously not the Defense Department, that is obviously a 
Justice Department perspective, but, yes. As I understand this, 
it gets quite complicated because, very often, the actor is not 
necessarily within the United States.
    Senator Brown. If there are problems, we need to know what 
they are. So if you identify what the complications are, we 
just can't continue to allow this to go willy-nilly.
    Mr. Estevez, when you are dealing with what you are doing, 
I am not opposed to making judicious, thoughtful cuts. But in 
the middle of two and a half wars, I want to make sure that 
whatever we are doing is going to ensure that our men and women 
cannot only serve and do their jobs effectively and safely but, 
in fact, come home.
    As a result of cuts that may affect that job performance 
and their safety, then I and others have a very real problem 
with that.
    Thank you. I wish you both well.
    Ms. Creedon. Thank you.
    Chairman Levin. Thank you very much, Senator Brown.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I just want to publicly acknowledge Ms. Madelyn Creedon and 
express my heartfelt endorsement for her nomination. I have 
been working closely with her, as with my duties in chairing 
the Emerging Threats and Capabilities Subcommittee of the 
Senate Armed Services Committee.
    She is a true professional that I have worked so closely 
with. She is well-qualified to discuss the issues addressed in 
this hearing today. I offer her my sincerest congratulations on 
this nomination. I am proud that she stands to contribute to 
the immeasurable accomplishments of women serving in DOD.
    My first question for you, Ms. Creedon, is this spring the 
President released a statement on the Nuclear Posture Review, 
and he publicly stated that the United States intends to reduce 
the role of nuclear weapons in our national security strategy 
and focus on reducing the nuclear dangers for the 21st century.
    We will, however, maintain our current stockpile, while 
making substantial investments to improve infrastructure, 
strengthen science and technology, and retain the human capital 
to sustain our stockpile. I am very concerned about the 
science, technology, engineering, and mathematics workforce in 
our country.
    What are your thoughts, as far as DOD, what can DOD do to 
ensure that DOD continues to have access to future scientific 
and technical talents in our country?
    Ms. Creedon. Thank you, Senator.
    This is a very large concern. I have looked at it over the 
years within the confines of the nuclear arena, to some extent 
in the confines of the space arena. It is a problem that 
extends not only in DOD, but also to the Department of Energy, 
which also has a very large role in making sure that our 
deterrent remains safe, secure, and reliable.
    It is difficult to motivate students to stay with the 
science and technology career path and educational path. 
Motivating students early on is extraordinarily important. I am 
also aware that DOD has various programs to help these 
students, to provide scholarships for these students. The 
Department of Energy has some similar programs.
    Part of the problem is also making sure that we have enough 
Ph.D. graduates, master's degree candidates, bachelor's degree 
candidates in our requisite science and technology disciplines 
that actually can come to work for DOD. In many instances, this 
requires clearances. It's about making sure that they can get 
the clearances. Some of this then goes to their nationalities.
    DOD is looking at this. There are some very early programs 
looking at how to accelerate the citizenship path. But this is 
a very serious problem we have to face going forward.
    Senator Hagan. It is a serious problem.
    Mr. Estevez, thank you, too, for being here and your 
nomination. I look forward to both of your confirmations.
    I have met with many soldiers who have been severely 
injured or wounded in Afghanistan. A large number of our 
wounded warriors are exposed, obviously, to improvised 
explosive devices (IED) and to enemy attacks because of their 
involvement in moving supplies. It is of critical concern that 
our servicemembers have access to the necessary equipment, 
food, and resupplies, but I am concerned about supply 
movements, which are often the target of the enemy.
    Afghanistan is landlocked, and the road networks are hard 
to navigate, and the country has few airports. What, if any, 
changes do you think can be made to meet the mission of the 
warfighters but minimize their exposure to enemy attacks in 
logistical supply movements?
    Mr. Estevez. I share those concerns, Senator, again, having 
just come back from Afghanistan and looking at some of the 
things that we are doing to protect our soldiers on the 
battlefield.
    First of all, our movement in providing things like MRAP 
vehicles, and their all-terrain variant, are incredible 
lifesaving devices out there that allow us a level of 
protection. There is nothing that is full protection, 
unfortunately.
    Through our rapid acquisition initiatives that Dr. Carter 
is leading and that I am part of in sustaining that equipment, 
we are also providing things like mine rollers, intelligence, 
surveillance, and reconnaissance assets, handheld devices that 
you can find IEDs on the road. We just need to do more of that.
    For internal transportation in Afghanistan, we are doing 
more air drop to our remote outposts. That takes convoys off 
the road or combat logistics patrols, as we prefer to call 
them, because those guys are out there doing combat as well and 
performing their logistics duties. More vertical lift, 
helicopter lift, both commercial and our own, can also help in 
that regard.
    Most of the movements in Afghanistan are actually 
commercial movements, using either Afghan national trucks or 
prime vendors who are contract. Now, those people also get 
wounded and killed out there. So taking them off the road is 
also beneficial. But commercial movements have better ability 
in some areas to get through than our own military convoys.
    Put all those things together, and we have focus on doing 
exactly what we both share in trying to take our folks off the 
road and provide safer movements.
    Senator Hagan. Thank you, because I have spent a lot of 
time with wounded warriors, and it is something that is of 
grave concern to me.
    Ms. Creedon, due to the rising threat of cyber attacks, DOD 
established the U.S. Cyber Command. Currently, much of the 
attacks on DOD networks involve theft, which include stealing 
password and information from secure networks.
    The cyber attacks on DOD are similar to the cyber attacks 
on large financial institutions and other major commercial 
industries that also face those attacks. How do you think DOD 
can work with the Department of Homeland Security and the 
private sector to protect critical national infrastructure, 
like the power-grid, the transportation system, and the 
financial sector?
    Ms. Creedon. It is important, obviously, that all of these 
sectors work together. DOD uses commercial communications 
capabilities. It relies on domestic power supplies in the 
United States. It relies on commercial fiber lines. It is 
absolutely essential that these entities work together.
    The difficulty, obviously, in getting three very disparate 
entities that are not often working together, that are not used 
to working together, working together is a difficult challenge. 
I know that this is a focus of the new cybersecurity strategy, 
the cybersecurity policy document that was just released.
    It is also one of the big focuses of the Defense Industrial 
Base Pilot really trying to partner with industry, particularly 
industry that is working with DOD and that has sensitive DOD 
materials, trying to figure out both the advantages of the 
commercial approaches, the advantages of DOD approaches, and 
figure out what is really the best actor in these instances.
    There are a lot of different ideas that I have heard. If 
confirmed, I look forward to really taking this on and trying 
to figure out how to improve our capabilities in this area.
    Senator Hagan. I will miss you on the committee, but I 
certainly do look forward to the confirmation of both of you.
    Thank you very much for your testimony.
    Ms. Creedon. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    To both of you, thank you very much for your willingness to 
serve. I agree, I hope the nominations go smooth, and you can 
be in your new roles.
    First, Ms. Creedon, if I could ask you a couple questions. 
As you probably know, I am a big supporter of the Ground-Based 
Missile Defense (GMD) System, and I want to get your opinion of 
how you see the GMD that is currently assembled. Do you believe 
this is the only system at this point that is capable of 
defending the Nation against intercontinental ballistic missile 
attack?
    Ms. Creedon. Yes, sir, it is, and it needs to be 
maintained.
    Senator Begich. Let me add to that. When you say 
``maintained'', can you elaborate a little bit on that? Where 
do you see the missile defense system for the United States in 
maintenance and/or expansion or other needs they may have?
    Ms. Creedon. My understanding that right now the Missile 
Defense Agency is focused on maintaining, updating, and 
upgrading the ground-based interceptors (GBI), so that they 
will eventually be in a common configuration, and to identify 
the root causes of the recent test failure and to make sure 
that once those are identified, that those fixes are 
incorporated across the land-based missile defense in Alaska.
    Senator Begich. In your advance policy questions, and this 
may go to what you just said--you had made the comment that 
need for additional interceptors. Is that what you are 
referring to or just elaborate a little bit more maybe?
    Ms. Creedon. My understanding is that as part of the 
overall review of the GBIs, and as part of the review that is 
now ongoing as a result of the test failures, as well as the 
continuing overall review as to what the threat looks like over 
time, and also the need to have a certain number of tests and 
replacement assets, that the combination of all that, from what 
I understand, it is looking at if there will probably be 
additional GBIs that will be needed over time. The amount, the 
timing of those, as I understand it, is still very much in the 
``to be determined'' category.
    Senator Begich. Thank you for your comment.
    I want to let you know I agree with that. I have said that 
for the last 2\1/2\ years, that based on the schedule--
actually, we had a hearing here maybe a year and a half ago 
with General O'Reilly, and we were talking about this. I made 
the comment that I think they are going to be short on how many 
they will need based on replacement.
    It sounds like there is a full review, and like you said, 
they are not sure when and how, but it is clear that there is 
an additional need of interceptors. When and how they will be 
placed is still up in debate. Is that fair?
    Ms. Creedon. That is my understanding at this point.
    Senator Begich. Very good.
    I don't know how much you are familiar in Alaska with the 
Kodiak Launch Complex and how it has been used or not been 
used, depends on the agency.
    Give me, if you could, some of your thoughts on how DOD 
will utilize their own systems, their own Federal facilities, 
as well as potentially facilities like this that are partially 
federally-funded, but State-operated. That is what this one is. 
It is not private, it is a quasi-government facility.
    Can you give me some thoughts on that? I am being very 
specific here around Kodiak launch facility, but in the broader 
perspective of other facilities that might be out there.
    Ms. Creedon. As you are well aware, we have been waiting 
for some time to get one of the TacSat satellites off. It looks 
like it is going to happen later this summer. That will be 
launched out of Kodiak.
    Senator Begich. Out of Kodiak.
    Ms. Creedon. That will be a good thing. We need that 
capability on orbit.
    Looking farther, looking broader at where we go with the 
smaller satellites is an issue that, if confirmed, I would hope 
to really look at some more. This committee has been very 
active in sponsoring the Operationally Responsive Satellite 
office, making sure that there is focus and attention paid on 
small satellites.
    Small satellites, I think, have an opportunity to play a 
very large role, both increasing our redundancy in space and 
also resiliency. It also has the added benefit of making more 
targets, if you will, which also has a deterrent effect on 
adversaries.
    Looking at other possibilities about disaggregating large 
satellites into small satellite components, these are all 
things that I think we need to do. If all of that pans out, 
then there become opportunities for smaller launchers, for the 
smaller launch sites. There is a launch site in Virginia that 
has also been very active in these smaller satellite launches. 
I think it is all very much tied with where we actually decide 
to go in small satellite operations.
    Senator Begich. The assumption is that you will be 
appointed and move forward in your new position, will you keep 
our office informed? Obviously, it is a great asset that the 
Federal Government has invested in, and we sure don't want to 
have it idle or not utilize it, what you might think is a 
possibility.
    But also, as you think of the long-term what your small 
satellite deployment might be, if there are issues that they 
need to deal with, please keep us informed and what we need to 
be doing there to make sure it is an asset that the military 
can utilize or not utilize, but at least be available to 
utilize.
    Ms. Creedon. I will, Senator.
    Senator Begich. Very good.
    Mr. Estevez, if I could ask you a couple questions. This 
one is DOD on Defense Personal Property System (DPS), which is 
a new system. It is Web-based. It helps manage personal 
property moves, and so forth.
    It has had some good changes, now you award these based on 
satisfactory performance, not just low bid, which I am a big 
believer in this, because sometimes the low bid is a garbage 
bid. Having a quality bid is a better bid. I think that is a 
good move.
    Here is the struggle. I know U.S. Transportation Command 
(TRANSCOM) is working on this, and I just ask you to look into 
this. Alaska is being treated a little differently in how the 
rate structure is being designed, and it is actually a 
disadvantage because of how you can't access 80 percent of the 
communities by roads.
    It is not like pulling up a moving van and hauling people 
out. It is a little different. Because of that, we have asked 
them to reexamine the rate structure.
    There is a group called Alaska Movers Association that has 
been aggressive in trying to figure this out. They are fine 
with the new Web base. They are all good with that. It is just 
the way they are developing the model is based on a lower 48 
model, actually is inconsistent, to some extent, with the lower 
48 model.
    I don't know how much you are familiar with this, but, if 
not, would you be willing to work with our office and the 
Alaska Movers Association and make sure we are on the right 
path here? We want to make sure that individuals aren't dipping 
in their own pocket, military personnel, because of the 
formula.
    We just had this problem with some housing issues, which is 
now being corrected, because of the uniqueness of Alaska 
housing costs.
    Mr. Estevez. Senator, I am very familiar with DPS. I am not 
familiar with the Alaska issue related to DPS. To your point, 
DPS is actually showing some pretty good results. This year, 
because of some bandwidth increases, it is actually working 
better than it did last year in returning savings.
    The transportation policy, the Deputy Assistant Secretary 
on the Logistics and Materiel Readiness staff, on the staff 
which I will lead, if confirmed, co-chairs an oversight board 
with TRANSCOM that looks at how DPS is structured. I will 
absolutely work with your staff to address disparities related 
to the Alaska Movers Association.
    Senator Begich. Great. We are looking just for fairness, we 
are not looking for anything special. It is just the uniqueness 
of the transportation challenges are a little different than 
maybe Fort McChord or any of that kind of activity.
    Let me end there. My time is expired.
    But one area I would like to touch on and you don't have to 
do it now, but maybe in the future, I would like to talk to you 
about rare earth materials. The comment I would make is with so 
much concentration in China, with, I think, 95, 96, 97 percent 
of our rare earth capacity, is to reexamine what we need to do. 
There are a lot of pieces of legislation floating now to try to 
figure out how do we deal with this from a defense perspective 
and a national security perspective.
    At some point, maybe as we move on some legislation or have 
these discussions raised, Alaska has several of these 
potentials for rare earth development. I would be curious about 
how you will handle that and deal with that in the future.
    But if you are confirmed, is this an area that will be of 
interest to you and willing to look at to make sure we are on 
the right path here?
    Mr. Estevez. It is not my primary area. Brett Lambert, our 
Deputy Assistant Secretary for Manufacturing and Industrial 
Policy, leads that. However, I do oversee the stockpile that 
the Defense Logistics Agency manages. We share that concern. I 
would be happy to work with you, Senator.
    Senator Begich. Great. I just want to make sure what 
stockpile you are looking at isn't empty, and so that is our 
goal.
    Thank you very much. Congratulations to both of you. I know 
I am saying that without the vote being done yet. But I hope 
you are confirmed, and thank you for your service.
    Chairman Levin. Thank you, Senator Begich.
    On the missile defense system issue, first of all, Ms. 
Creedon, would you agree that operational missile defense 
systems should be operationally effective before they are 
deployed?
    Ms. Creedon. Yes, sir.
    Chairman Levin. They should be cost effective?
    Ms. Creedon. Yes, sir.
    Chairman Levin. As stated in the ballistic missile defense 
review.
    Now, the United States and NATO are exploring options for 
cooperation with Russia on missile defense in order to enhance 
mutual security against common missile threats from Iran. Do 
you believe it is worth exploring those options?
    Ms. Creedon. I do, sir.
    Chairman Levin. Russia has expressed concerns that our 
missile defense systems may undermine its strategic deterrent. 
Will you use your best efforts to dissuade them from that 
perspective?
    Ms. Creedon. Yes, sir.
    Chairman Levin. On the cyber issues, which have been raised 
by a number of us, I think we should appreciate the caution 
that you use in terms of your response to these questions as to 
when is a cyber attack an act of war. But I think we also need 
to do what you and others have suggested we do, which is to 
sort out the elements of that question because these are 
vitally critical issues to our security, to our own 
cybersecurity, to our country's security.
    But when we are talking about acts of war, we are then 
talking about a necessity, if we can't deter, of responding to 
those acts. It seems to me that the question, if there is an 
intentional attack on our capability and our systems by another 
country and where that intention is to disrupt our systems, 
that the issue of what is an appropriate response is an open 
issue. What is proportionate, for instance.
    However, if you know who the actor is, and if it is another 
nation and if its purpose is not espionage--which we conduct as 
well, not just other nations that conduct acts of espionage. We 
conduct acts of espionage. We have spies out there, too.
    If we decide that the motive is not espionage or spying on 
us, but that the motive is to disrupt our systems, that then it 
may be that the issue we haven't sorted out is what is an 
appropriate response, but that the question of whether or not 
it is an act of war, it seems to me, is resolved by the way the 
question is framed.
    If it is a purposeful, intentional effort on the part of 
another nation to disrupt some system of ours, putting aside 
the response and what is appropriate, that does constitute an 
aggressive act of war against us.
    I know you are being cautious, and I admire that, and you 
should be. But I am trying to phrase a question in a way where 
it seems to me the issue becomes not how do you know. That is 
part of the question. It is the given. It is the assumption.
    The question isn't how do you respond? Set that aside. It 
is an important question, and proportionality is critically 
important. But I am trying to put everything into the question 
in a way that, yes, that sure sounds like an act of war to me, 
which it does to me, by the way. Would it not sound like an act 
of war to you, the way I phrased the question?
    Ms. Creedon. Sir, yes. I think part of this is 
understanding, and this is where I have trouble. I think this 
is where a lot of people have trouble, so you start with, okay, 
is it possible that a cyber act could be an act of war? I think 
that answer to that is absolutely yes. Just like any kinetic 
act could be an act of war.
    The question then is, okay, let us assume that it was. It 
is a cyber attack, and we have determined that it is an act of 
war. That still gets you back to, well, what are we going to do 
about it?
    Chairman Levin. No, but that is not the question.
    Ms. Creedon. But there is certainly a construct where an 
attack is an act of war. Whether it is a cyber attack or a 
kinetic attack, it can be determined an act of war.
    Chairman Levin. I am trying to construct an example. That 
is what I am trying to do is construct an example so we have a 
feel as to where you are.
    How would that not be? If the actor is known, it is a state 
actor. If the motive is known, its motive is to disrupt or 
destroy. Why would that not be an act of war?
    Ms. Creedon. It sure sounds like it is, but I don't know 
for sure that it is.
    Chairman Levin. Even with my givens and assumptions?
    Ms. Creedon. Yes, and I think some of this----
    Chairman Levin. How could it not be?
    Ms. Creedon. I think part of it, we would have to go back 
and look at what is understood international law as to what is 
an act of war. It is certainly a hostile act. It is certainly a 
hostile intent. It is where does it become an act of war? That 
is where I think that there is some uncertainty.
    Chairman Levin. The word ``disrupt'' doesn't answer that 
question?
    Ms. Creedon. I am not sure ``disrupt'' answers that. I am 
not sure ``disrupt''----
    Chairman Levin. If it is intentionally----
    Ms. Creedon. Maybe it is the size of the disruption. Maybe 
there is a proportionality.
    Chairman Levin. That is an issue of what the response is.
    Ms. Creedon. There is an intent as well.
    Chairman Levin. I have given the intent in my question. The 
intent is to disrupt.
    Ms. Creedon. I think there is a point at which it probably 
could be. I think it probably could be. I think it is just 
really hard in the abstract to say, okay, that specific example 
is, in fact, an act of war because there is a danger, I think, 
also in laying out red lines.
    If you say, ``Okay, this is it. You cross this line. It is 
an act of war.'' There is a danger there because it sets us up 
for some act that we might not necessarily be prepared to take.
    Chairman Levin. I think we have to sort that out pretty 
quick because it sounds to me with all of the qualifications 
that I put in there, that there is an intent to disrupt. It is 
not a side effect. It is not an unintentional consequence of an 
act of espionage. It is an intent to disrupt.
    That seems to me to go to the heart of the matter. But if 
it isn't, we sure better find that out fast because we could 
give a false signal as well if we are ambiguous about 
considering that to be a hostile act or an act of war, and I 
think we better end that ambiguity fast.
    The proportionality issue, that is always a problem. That 
is an issue after you have been attacked.
    Ms. Creedon. Yes, sir.
    Chairman Levin. But if you know what the intent is, once 
you know that intent is to disrupt or destroy, it seems to me 
then the issue becomes what is the appropriate reaction. But it 
is not a question of whether there should be a response at that 
point.
    I think that your testimony indicates that there sure is a 
heck of a lot of work to do, and I think we better do some of 
the basic work quickly while we spend more time perhaps in 
trying to figure out how do we know and what do we do? Those 
are questions which may take a lot more time to figure out.
    But the question of whether we respond to an intentional 
act to disrupt, seems to me, should not be difficult. It should 
not be difficult as to whether we respond.
    We thank you both. We thank your families, those who are 
here and those who are not here. We look forward to a speedy 
confirmation.
    The committee will stand adjourned.
    [Whereupon, at 11:10 a.m., the committee adjourned.]

    [Prepared questions submitted to Madelyn R. Creedon by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. The Goldwater-Nichols legislation has been very 
successful in improving operational and warfighting effectiveness.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see the need to change this legislation.

                             RELATIONSHIPS

    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. At the direction of the Under Secretary of Defense for 
Policy (USD(P)), the Assistant Secretary of Defense for Global 
Strategic Affairs (ASD/GSA) advises the Secretary of Defense on 
strategy and policy on issues relating to nuclear weapons, missile 
defense, countering weapons of mass destruction (WMD), and the space 
and cyberspace domains.
    Question. The Deputy Secretary of Defense.
    Answer. The ASD/GSA provides support to the Deputy Secretary of 
Defense similar to the support provided to the Secretary of Defense.
    Question. The Under Secretary of Defense for Policy.
    Answer. The ASD/GSA provides support to the Under Secretary of 
Defense for Policy similar to the support provided to the Secretary and 
Deputy Secretary of Defense.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. Under guidance of the USD(P), the ASD/GSA works with the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) in pursuit of the Secretary's objectives and ensures that 
policy execution is well-informed and supported appropriately. The ASD/
GSA also provides policy input regarding acquisition and programmatic 
activities that relate to nuclear weapons, missile defense, countering 
WMD, and the space and cyberspace domains.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The ASD/GSA works collaboratively and collegially with the 
Assistant Secretary of Defense for International Security Affairs to 
provide policy advice to the USD(P) and the Secretary on crosscutting 
global security strategy and policy issues, such as regional missile 
defense cooperation and NATO developments pertaining to GSA's 
functional expertise.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. The ASD/GSA works with the Assistant Secretary of Defense 
for Asian and Pacific Security Affairs to provide policy advice to the 
USD(P) and the Secretary on cross-cutting global security strategy and 
policy issues, such as containing North Korean proliferation of WMD.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The ASD/GSA works with the Assistant Secretary of Defense 
for Homeland Defense and Americas' Security Affairs to provide policy 
advice to the USD(P) and the Secretary on cross-cutting security 
strategy and policy issues, such as enhancing the survivability of 
critical cyberspace infrastructure.
    Question. The Assistant Secretary of Defense for Special 
Operations, Low Intensity Conflict, and Interdependent Capabilities.
    Answer. The ASD/GSA works with the Assistant Secretary of Defense 
for Special Operations/Low-Intensity Conflict to provide policy advice 
to the USD(P) and the Secretary on cross-cutting global security 
strategy and policy issues, such as countering the proliferation of WMD 
through improved synchronization of contingency plans.
    Question. The Assistant Secretary of Defense for Nuclear, Chemical, 
and Biological Defense Programs.
    Answer. The ASD/GSA works closely with the Assistant Secretary of 
Defense for Nuclear, Chemical and Biological Defense Programs (ASD/NCB) 
to provide policy advice to the USD(P) and the Secretary on cross-
cutting global security strategy and policy issues. The ASD/NCB is 
responsible for implementing many of the activities for which the ASD/
GSA develops policy guidance, such as chemical/biological defense, 
Nunn-Lugar Cooperative Threat Reduction (CTR) program, and oversight of 
the Defense Threat Reduction Agency. Therefore, the relationship 
between the two offices should be particularly close.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. At the direction of the USD(P), the ASD/GSA works with the 
Chairman (CJCS) and Vice Chairman of the Joint Chiefs of Staff to 
provide support on matters that affect strategy and policy for nuclear 
weapons, missile defense, countering WMD, and the space and cyberspace 
domains.
    Question. The Service Secretaries.
    Answer. At the direction of the USD(P), the ASD/GSA works with the 
Military Department Secretaries on a broad range of policy issues.
    Question. The Service Chiefs.
    Answer. At the direction of the USD(P), the ASD/GSA works with the 
Service Chiefs on a broad range of policy issues.
    Question. The Commander of U.S. Strategic Command.
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the ASD/GSA works with the Commander of U.S. Strategic Command on 
a broad range of issues that affect strategy and policy for nuclear 
weapons, missile defense, countering WMD, and the space and cyberspace 
domains.
    Question. The Commander of U.S. Cyber Command.
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the ASD/GSA works with the Commander of U.S. Cyber Command on a 
broad range of issues that affect defense activities in cyberspace. As 
the OSD Principal Staff Assistant with responsibility for cyber policy, 
the relationship with U.S. Cyber Command should be very close to ensure 
appropriate coordination of this dynamic mission area.
    Question. The regional combatant commanders.
    Answer. In coordination with the CJCS, the ASD/GSA works closely 
with the geographic combatant commanders (GCC) to provide policy 
oversight of strategy, plans and operations relating to nuclear 
weapons, missile defense, countering WMD, and the space and cyberspace 
domains in support of the USD(P), the Secretary, and the President of 
the United States.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration.
    Answer. The ASD/GSA works with the Administrator and Deputy 
Administrators of the National Nuclear Security Administration to 
provide policy support to the USD(P) and the Secretary on strategy and 
policy issues, relating to nonproliferation of nuclear weapons, nuclear 
material security, U.S. nuclear stockpile matters, and related issues.

                                 DUTIES

    Question. The position for which you have been nominated has been 
substantially restructured over the last few years.
    What is your understanding of the duties that you will be assigned 
if you are confirmed?
    Answer. My understanding is that ASD/GSA is primarily responsible 
for advising and supporting the USD(P) and the Secretary on policy and 
strategy in the areas of U.S. nuclear weapons and missile defense, 
countering WMD, and the space and cyberspace domains.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have had over 30 years of experience in a variety of 
executive branch positions and as a member of the staff of the Senate 
Committee on Armed Services in the areas of responsibility assigned to 
the ASD/GSA.
    Question. What additional actions do you believe you need to take, 
if any, to fulfill the responsibilities of this position?
    Answer. If confirmed, I will focus on understanding the many 
specific responsibilities and interactions that are necessary to ensure 
that I can effectively carry out the duties of the office of ASD/GSA. 
Many of the overarching policy documents governing nuclear, space, and 
missile defense policies have been issued. I will develop an 
understanding of the actions needed to implement these policies. The 
area of cyber policy will need particular attention and, if confirmed, 
I will work to develop and grow the relationships and knowledge 
necessary to provide policy guidance in this challenging issue area.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Assistant ASD/GSA?
    Answer. Implementation of the Nuclear Posture Review (NPR), 
Ballistic Missile Defense Review (BMDR) and Space Posture Review (SPR), 
as well as the New Strategic Arms Reduction Treaty (START), the 
National Space Security Strategy, the DOD Cyber Strategy, and the 
President's nuclear security agenda and biosecurity strategy will all 
be significant challenges. Implementing these new policies and 
strategies under a constrained budget will be even more challenging.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed as ASD/GSA, I will develop the close 
working relationships with key partners in DOD, with other relevant 
executive branch partners, and within Congress, to understand and 
address the various programs, issues, and concerns necessary to 
implement the new policies and strategies.
    Question. What do you anticipate will be the most serious problems 
in the performance of your responsibilities?
    Answer. At present I am not sure what will be the most serious 
problems that I would face if confirmed, but I am very concerned about 
ensuring that the new policies and strategies are implemented in a cost 
efficient manner.
    Question. If confirmed, what management action and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work with the ASD/GSA staff and the 
USD(P) to identify, understand, and prioritize any problems impeding 
performance of my responsibilities, and to develop timelines to resolve 
these problems.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
for the office to which you have been nominated?
    Answer. I understand that Under Secretary Flournoy has emphasized 
the importance of her team's support to the Secretary to improve 
interagency development of long-term national security policy options. 
If confirmed, I will ensure that staff of the ASD/GAS is equipped to 
support her and the Secretary in achieving these goals.

                         NUCLEAR POSTURE REVIEW

    Question. If confirmed, what role will you play in overseeing and 
implementing the policies, strategies, and priorities established in 
the NPR?
    Answer. If confirmed, I understand that I would help to develop and 
oversee implementation of the agenda set forth in the NPR. This would 
include helping to frame key issues and decisions for the USD(P) and 
the Secretary in coordination with my colleagues in USD(AT&L), the 
Joint Staff, the Military Departments, and STRATCOM, as well as the 
NNSA and the National Security Staff.

                          SPACE POSTURE REVIEW

    Question. If confirmed, what role will you play in overseeing and 
implementing the policies, strategies, and priorities established in 
the Space Posture Review?
    Answer. If confirmed, I understand that I would support the USD(P) 
and the Secretary to continue implementation of President's 2010 
National Space Policy and the National Security Space Strategy, which 
included the Space Posture Review. In that regard, if confirmed, I 
understand that I would help to develop and oversee implementation of 
DOD policies related to space. This would include overseeing 
implementation of strategy and plans related to space forces, systems, 
and activities in close coordination with other DOD officials, as well 
as serving on the Defense Space Council.

                             SPACE PROGRAMS

    Question. If confirmed, what role will you play in establishing 
architectures for various space systems, such as communications and 
Overhead Persistent Infrared (OPIR)?
    Answer. If confirmed, I expect to participate actively in the 
Planning, Programming, Budgeting and Execution system, as well as other 
DOD decisionmaking processes, to ensure space system architectures 
support our national security objectives effectively. I would expect 
that this would include support to effective, efficient, and well-
coordinated communications, OPIR, and other essential national security 
space applications and programs.
    Question. If confirmed, what role will you play in developing a 
space protection strategy and improving space situational awareness?
    Answer. The United States is heavily reliant upon and gains unique 
benefits from its national security space capabilities. Continually 
improving space situational awareness underpins our ability to operate 
safely in the increasingly congested space environment and enables the 
protection of space assets. If I am confirmed, I will work to ensure 
appropriate and effective strategies are in place to increase our space 
situational awareness as well as to ensure that critical space 
capabilities are resilient and redundant to maintain the advantages 
provided by these capabilities.

                        SPACE RULES OF THE ROAD

    Question. Over the course of the last several years there has been 
discussion about establishing international space rules of the road to 
deal with, mitigate, and reduce generation of space debris.
    What are your views on establishing space rules of the road?
    Answer. Establishing norms for the responsible, peaceful, and safe 
use of space and preservation of the space environment are important 
issues for all space-faring nations. Rules of the road or other 
pragmatic guidelines for safe activity in space could help avoid 
collisions and other debris--producing events, reduce radiofrequency 
interference, and strengthen safety, stability, transparency, and 
security in the space domain.

                    INTERNATIONAL SPACE COOPERATION

    Question. Do you support arms control limitations on space 
capabilities?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, which states that the United States will pursue bilateral 
and multilateral transparency and confidence-building measures to 
encourage responsible actions in, and the peaceful use of, space, and 
will consider proposals and concepts for arms control measures if they 
are equitable, effectively verifiable, and enhance the national 
security of the United States and its allies.
    Question. Would you support the United States signing the so-called 
European Union Code of Conduct for Outer Space Activities?
    Answer. I understand that the Department is currently evaluating 
the European Union's proposed international Code of Conduct for Outer 
Space Activities. If confirmed, I look forward to continuing this 
evaluation.
    Question. Given the concern about the increase in space debris, and 
the need to improve the ability to forecast and avoid potential 
conjunctions, in your view is there an opportunity to cooperate with 
Russia and other nations in the area of space debris analysis and 
warning?
    Answer. The significant increase in space debris presents 
challenges to all space faring nations. I believe that coordinated 
international efforts to develop and share information, particularly 
with respect to space debris, could help increase awareness and prevent 
mishaps, misperceptions, and mistrust. I understand that the Department 
recently signed statements of principles on Space Situational Awareness 
sharing with Australia, Canada, and France. Additional such statements 
signed with other nations, and with commercial firms, would continue to 
enhance spaceflight safety for all parties.

                       NUCLEAR WEAPONS MANAGEMENT

    Question. Since the Air Force unknowingly flew nuclear weapons on a 
B-52 bomber from Minot Air Force Base in North Dakota to Barksdale Air 
Force Base in Louisiana on August 30, 2007, the Air Force has taken a 
number of significant steps to increase its attention, discipline, and 
expertise on nuclear weapons management.
    If confirmed, what role, if any, will you play in ensuring that 
nuclear weapons are safe, secure, and accounted for, and that the 
Military Services have established a high level of attention, 
discipline, and conduct of operations with respect to nuclear weapons?
    Answer. Since the events of August 2007 the Air Force has made 
significant improvements in its management of the Air Force nuclear 
enterprise. If confirmed, I will work with the other stakeholders in 
OSD, the Joint Staff, the Military Departments, and combatant commands, 
as well as with NNSA, to ensure that the renewed senior-level focus and 
attention and new management approaches are sustained and 
institutionalized. It is vitally important that all aspects of our 
nuclear force and the nuclear weapons enterprise are positioned to 
ensure their long-term safety, security, accounting, and reliability.
    Question. The various reviews of the Air Force incident also 
exposed significant gaps in the Office of the Secretary of Defense 
(OSD) with respect to the attention and expertise to deal with nuclear 
weapons issues.
    If confirmed, what steps will you take to ensure that there is 
sufficient attention to management of nuclear weapon matters in the 
OSD?
    Answer. If confirmed, I will work with the USD(P), the ASD-NCB, the 
Military Departments and other key stakeholders to sustain senior-level 
attention on the safety, security, and reliability of our nuclear 
deterrent.
    Question. If confirmed, what steps will you take to ensure that 
there is sufficient technical expertise in OSD with respect to nuclear 
weapons?
    Answer. I would note that with the reorganization in the policy 
office and the creation of the ASD/GSA, a strong focus on nuclear and 
other relevant expertise was reestablished. If confirmed, I will 
continue to evaluate the expertise available to the ASD/GSA. Included 
in this evaluation will be the means to ensure that new technical and 
policy expertise relating to nuclear policy is ``grown'' in OSD since 
the aging nuclear workforce poses a challenge to our deterrent. If 
confirmed, I will continue OSD's traditional outreach to institutions 
such as the NNSA National Security Laboratories, in order to strengthen 
relationships and enlist on-site support through their experts detailed 
to OSD.

                        NUCLEAR WEAPONS COUNCIL

    Question. The Nuclear Weapons Council (NWC) is intended to be the 
joint DOD-Department of Energy (DOE) management organization for 
nuclear weapons matters.
    If confirmed, what responsibilities and interaction do you expect 
to have relative to the NWC?
    Answer. The NWC is a statutorily established entity with broad 
responsibility for nuclear weapons. The Under Secretary of Defense for 
Policy is a member of the NWC. If confirmed, I would expect to support 
the USD(P) in the work of the NWC.

                       STRATEGIC NUCLEAR PROGRAMS

    Question. The NPR established, among other things, nuclear force 
structure parameters prior to negotiation of the New START treaty. The 
administration has indicated that it is continuing to study future 
nuclear force levels, consistent with the NPR.
    If confirmed, what roles and responsibilities do you expect to have 
relative to policy development concerning future nuclear force 
structure and planning?
    Answer. If confirmed, I expect to help shape the development of 
policy for the nuclear force structure and the planning to implement 
the President's vision of a re-capitalized nuclear enterprise.

                    NEW START TREATY IMPLEMENTATION

    Question. The New START treaty entered into force in February 2011, 
and establishes limits on the deployed and nondeployed strategic 
nuclear forces of Russia and the United States. The treaty allows the 
parties up to 7 years to comply with the numerical limits of the 
treaty.
    If confirmed, what role do you expect to play in overseeing 
implementation of the New START treaty?
    Answer. If confirmed, I expect to work with the Air Force and the 
Navy, Strategic Command, the Joint Staff, the NNSA, and others to 
implement the New START treaty to meet the central limits of the New 
START treaty by 2018 while maintaining a safe, secure, and reliable 
nuclear deterrent.

            MODERNIZATION OF THE NUCLEAR WEAPONS ENTERPRISE

    Question. A principal issue in the debate of the New START treaty 
was ensuring that as we draw down the number of deployed nuclear 
warheads that we modernize our nuclear warhead production capability as 
well as their command and control systems and delivery platforms.
    If confirmed, what role do you expect to play in modernizing these 
three areas?
    Answer. If confirmed, I will continue the Department's commitment 
to a safe, secure, and reliable nuclear deterrent. This includes 
sustaining and maintaining the nuclear stockpile, and modernizing the 
nuclear infrastructure and delivery systems.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Yes.
    Question. Prior to completing this modernization effort do you 
believe it would be prudent to consider reductions below New START 
treaty limits for either the deployed or nondeployed stockpile of 
nuclear weapons?
    Answer. The most recent section 1251 report covers funding through 
2021, the term of the New START treaty, but these substantial 
investments in nuclear infrastructure must continue well beyond this 
timeframe. As a result, any proposed future reductions in deployed 
strategic warheads covered by the treaty, or deployed non-strategic 
warheads and non-deployed warheads, not covered by the treaty, must all 
be considered in a number of contexts, including the rate and progress 
of the complex modernization, the success of the life extensions, and 
the sustainment and modernization of the delivery systems, as well as 
the geopolitical environment. I would note that the NPR states that any 
future nuclear reductions must continue to strengthen deterrence of 
potential regional adversaries, maintain strategic stability vis-a-vis 
Russia and China, and maintain the reliability and effectiveness of our 
security assurances to our allies and partners. Ensuring that we are 
well-hedged against geopolitical or technical surprise also remains a 
key priority. If confirmed, I will support the Department's continuing 
assessment of the proper force size and the capabilities required for a 
safe, secure, and reliable nuclear deterrent.
    Question. Without the construction of the Chemical and Metallurgy 
Research Replacement Facility at Los Alamos and the Uranium Production 
Facility at Y-12 and the other elements associated with the robust plan 
for modernizing the nuclear weapons complex, do you believe reductions 
to the strategic hedge would be prudent?
    Answer. Ensuring that we are well-hedged against geopolitical or 
technical surprise remains a key priority of the NPR report with which 
I agree. Modernization of the nuclear complex, the success of the life 
extension programs, and the progress maintaining and modernizing 
nuclear delivery platforms, as well as the geopolitical environment, 
will all inform any future proposals to reduce the hedge. The NPR also 
stated that modernization of the nuclear weapons complex will 
eventually allow the United States to shift its ``hedging strategy'' 
away from retaining large numbers of non-deployed warheads to a 
smaller, more responsive manufacturing infrastructure. If confirmed, I 
will support the Department's continuing assessment of the proper force 
size and the capabilities required for a safe, secure, and reliable 
nuclear deterrent.

                             NUCLEAR POLICY

    Question. Do you support the President's vision for a world without 
nuclear weapons?
    Answer. The Nuclear Nonproliferation Treaty (NPT), which entered 
into force in 1970, included as a goal the cessation of the nuclear 
arms race and set forth the commitment ``to undertake effective 
measures in the direction of nuclear disarmament.'' The President's 
ultimate goal of eliminating nuclear weapons worldwide is consistent 
with the NPT. The President has also said, however, that while working 
toward that goal the United States will retains a safe, secure, and 
reliable nuclear deterrent, as long as nuclear weapons exist. I support 
both of these goals.
    Question. Do you believe this goal is a viable near- and/or long-
term strategic strategy for the United States?
    Answer. The conditions that would ultimately permit the United 
States and others to give up their nuclear weapons without risking 
greater international instability and insecurity do not exist today. As 
a result I think the goal is a long-term one.
    Question. In a recent speech at the 2011 Carnegie International 
Nuclear Policy Conference, Thomas Donilon, the President's National 
Security Advisor, stated that the administration is currently ``making 
preparations for the next round of nuclear reductions'' and that DOD 
will ``review our strategic requirements and develop options for 
further reductions in our current nuclear stockpile.'' He continued by 
stating that in meeting these objectives, the White House will direct 
DOD to consider ``potential changes in targeting requirements and alert 
postures.''
    Do you believe the United States should pursue further reductions? 
Please explain why or why not.
    Answer. I would note that the NPR states that any future nuclear 
reductions must continue to strengthen deterrence of potential regional 
adversaries, maintain strategic stability vis-a-vis Russia and China, 
and maintain the reliability and effectiveness of our security 
assurances to our allies and partners. Ensuring that we are well-hedged 
against geopolitical or technical surprise also remains a key priority. 
If confirmed, I will support the Department's continuing assessment of 
the proper force size and capabilities required for a safe, secure, and 
reliable nuclear deterrent.
    Question. Do you believe it would be prudent for the United States 
to pursue unilateral nuclear reductions? Please explain why or why not.
    Answer. On balance I do not believe the United States should make 
unilateral reductions in the strategic nuclear systems covered under 
the New START treaty, while the treaty is in force. Reductions in 
nuclear systems not covered by the new treaty should be addressed on a 
case-by-case basis and should reflect geopolitical situations as well 
as the technical requirements associated with maintaining a safe, 
secure, and reliable nuclear deterrent.
    Question. Do you believe changes to well-established nuclear 
targeting requirements could negatively impact our ability to: (1) 
assure our allies; (2) discourage other countries from seeking 
strategic equivalence with the United States in nuclear weapons; and 
(3) hedge against future threats and uncertainties?
    Answer. While I understand that DOD continually assesses deterrence 
requirements, including potential changes in targeting requirements, I 
am not familiar with the specific targeting policy. If confirmed, I 
will continue to support a safe, secure, and reliable nuclear 
enterprise that maintains strategic deterrence and stability, 
strengthens regional deterrence, and assures our allies and partners.

                    BALLISTIC MISSILE DEFENSE REVIEW

    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs, and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the Homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review?
    Answer. Yes.
    Question. If confirmed, what role do you expect to have in 
implementing these policies, strategies, and priorities?
    Answer. If confirmed, I expect to provide oversight and guidance to 
implement the BMDR, and to participate in the development of related 
policies, as well as prioritization of resources.

                        PHASED ADAPTIVE APPROACH

    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting this year and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against long-range missiles that could reach all of Europe or 
the United States, thus augmenting the existing Homeland missile 
defense capability.
    Do you support the Phased Adaptive Approach to missile defense in 
Europe and, if confirmed, what role do you expect to have in 
implementing this approach?
    Answer. Yes, I support the European PAA and, if confirmed, I will 
continue the substantial U.S. efforts already underway to deploy all 
four phases of the European PAA. I would expect that a significant part 
of my role would include working with our allies and partners to ensure 
pragmatic and cost-effective cooperation, and providing oversight and 
guidance to the development and deployment of U.S. missile defense 
capabilities.

           ``FLY BEFORE YOU BUY'' APPROACH TO MISSILE DEFENSE

    Question. The two most recent flight tests of the Ground-based 
Midcourse Defense (GMD) system failed to intercept their targets. The 
Director of the Missile Defense Agency (MDA) has formed a Failure 
Review Board to determine the root cause of the most recent failure, 
and will devise a corrective plan that includes two flight tests to 
confirm the correction. Until the second flight test confirms the 
correction, the Director of MDA has suspended production of the Exo-
atmospheric Kill Vehicles (EKV) of the type that failed last year's 
flight tests, in order to ensure that those EKVs are not deployed with 
a flaw that would need to be corrected later.
    Do you agree that it is essential to verify that the GMD flight 
test failure problem has been corrected before continuing production of 
the EKVs, and before delivering more Ground-Based Interceptors (GBIs) 
or deciding how many additional GBIs may be needed in the future?
    Answer. Yes. I understand that although the exact number of 
additional GBIs will not be decided until the test failure problems are 
identified and resolved, it does appear that additional GBIs will be 
required.
    Question. Do you agree with the Defense Department's ``fly before 
you buy'' policy for missile defense that ``before new capabilities are 
deployed they must undergo testing that enables an assessment under 
realistic operational conditions against threat-representative 
targets'' to demonstrate that they will be effective and reliable?
    Answer. Yes.
    Question. Do you support the continued modernization and 
sustainment of the Ground-Based Midcourse Defense System?
    Answer. Yes.

               HOMELAND MISSILE DEFENSE HEDGING STRATEGY

    Question. One of the elements of the BMDR is the policy of hedging 
our Homeland missile defense options in case the threat of future long-
range ballistic missiles from countries like North Korea and Iran 
develops more rapidly or more robustly than expected, or if we 
encounter technical problems or delays in developing the Standard 
Missile-3 Block IIB interceptor. DOD has already decided to pursue a 
number of hedging options, and is considering others.
    Do you support the policy that the United States should maintain a 
hedging strategy for Homeland missile defense?
    Answer. Yes.
    Question. If confirmed, what role do you expect to play in 
overseeing our missile defense hedging strategy?
    Answer. If confirmed, I expect to monitor the ballistic missile 
threat and to be responsible for ensuring that we have the policies and 
strategies in place to address changes in the threat or unexpected 
delays in development of new technical capabilities.

                MISSILE DEFENSE COOPERATION WITH RUSSIA

    Question. The United States and NATO are exploring options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. I think that cooperation with Russia could strengthen the 
effectiveness of U.S. and NATO missile defenses, as well as those of 
the Russian Federation against Iran.
    Question. Do you believe that U.S.-Russian missile defense 
cooperation could send an important signal to Iran that the United 
States and Russia are unified in their determination to reduce the 
risks of Iran's nuclear and missile programs?
    Answer. Yes, missile defense cooperation with Russia could send an 
important signal to Iran that Russia and the United States are working 
together to counter the acquisition, deployment, and use of ballistic 
missiles. This in turn could further strengthen the international 
commitment to prevent Iran from acquiring nuclear weapons.
    Question. Do you agree that irrespective of Russian objections, the 
United States is committed to the continued development and deployment 
of U.S. missile defense capabilities, including qualitative and 
quantitative improvements to such capabilities?
    Answer. My understanding is that the United States is committed to 
this goal and to developing and deploying improved missile defenses 
against states such as Iran and North Korea.
    Question. If confirmed, what role do you expect to play in efforts 
to pursue missile defense cooperation with Russia?
    Answer. The administration is pursuing a broad agenda with Russia 
focused on shared early warning of missile launches, technical 
cooperation, and even operational cooperation. Cooperation with Russia 
could offer some important tangible benefits for the United States, our 
NATO allies, and Russia. If confirmed, I will support the efforts of 
the Defense Relations Working Group, established by Defense Secretary 
Gates and Defense Minister Serduykov, to further practical cooperation 
in a number of areas, including missile defense.

                    CHEMICAL AND BIOLOGICAL DEFENSE

    Question. One of the areas under the ASD/GSA is the Chemical and 
Biological Defense Program of the Defense Department.
    What do you believe are the principal challenges in chemical and 
biological defense, and what would be your priorities for the DOD 
Chemical and Biological Defense Program?
    Answer. As part of the Department's overall effort to counter WMD, 
the Office of the ASD/NCB manages the Chemical and Biological Defense 
Program. If confirmed, I would be responsible for development of 
policies to guide the program. I am informed that current priority 
issues include developing defenses against non-traditional chemical 
agents, and accelerating the ability to detect and attribute any 
chemical, nuclear, or biological materials used to attack or threaten 
the United States. These appear to be appropriate priorities. I would 
note that DOD, through the CTR and other programs, is developing a 
comprehensive toolkit of biological defense options for the Secretary 
that includes biosurveillance, vaccines, and other medical 
countermeasures to protect our forces against multiple threats.
    Question. Do you believe the Chemical and Biological Defense 
Program should be closely coordinated with related efforts of the 
Defense Department's CTR program focused on reducing biological 
threats?
    Answer. Yes. The Chemical and Biological Defense program and the 
CTR program are well-established components of the U.S. efforts to 
counter WMD. The two programs have related but distinct goals, but they 
should be closely coordinated for the best effect. If confirmed, I will 
ensure that these and other DOD biological defense policies are 
coordinated appropriately both within the DOD and with other relevant 
U.S. and international agencies.

                       CHEMICAL DEMILITARIZATION

    Question. DOD Directive 5160.05E states the DOD policy that ``DOD 
shall be in full compliance'' with the Chemical Weapons Convention 
(CWC) and the Biological Warfare Convention (BWC). In 2006, the 
Department announced that the United States would not meet even the 
extended deadline of April 2012 for destruction of its chemical weapons 
stockpile, as required under the CWC.
    Do you agree that DOD and the U.S. Government should be in full 
compliance with the terms and obligations of the CWC and the BWC, 
including the deadline for destruction of the U.S. chemical weapons 
stockpile under the CWC?
    Answer. I understand that in 2006, the United States informed the 
Organization for the Prohibition of Chemical Weapons that it did not 
expect to meet the 2012 deadline. Since then the United States has 
continued to follow a policy of transparency about the U.S. chemical 
weapons destruction program and stressed U.S. efforts to find ways to 
accelerate it. I understand that the Department is on track to destroy 
90 percent of the U.S. stockpile by the CWC deadline, and that the Army 
and the office of the USD(AT&L) are focusing significant senior 
leadership attention on this issue.
    Question. If confirmed, will you work to ensure that the Department 
takes steps needed to minimize the time to complete destruction of the 
U.S. chemical weapons stockpile, without sacrificing safety or 
security, and that the Department requests the resources necessary to 
complete destruction as close to April 2012 as practicable?
    Answer. Yes.

                          COUNTER-WMD EFFORTS

    Question. One of the issue areas under the ASD/GSA is the DOD 
effort to counter WMD, meaning nuclear, biological, and chemical 
weapons.
    What do you believe are the principal challenges in countering WMD, 
and what are your priorities for Defense Department efforts to counter 
WMD?
    Answer. President Obama made clear in his April 2009 speech in 
Prague that overcoming the twin dangers of WMD proliferation and WMD 
terrorism are the greatest threats facing our country and will require 
a comprehensive approach to reduce and counter these threats. 
Countering these threats takes commitment not only by the United States 
but also by the international community. One of the significant 
challenges is developing a sustained commitment among international 
partners to both recognize the threat and to take the actions necessary 
to reduce the dangers.
    Question. If confirmed, what role do you expect to play in the 
creation of policy for, and oversight of, Defense Department programs 
to counter WMD?
    Answer. If confirmed, I will pursue policies to reduce and 
eliminate WMD dangers at their source and in transit, while enhancing 
our ability to detect and respond to emerging threats. Another key 
priority is to continue refining policy guidance that ensures our 
forces and coalition partners can fight and win, in an environment 
contaminated by chemical, biological, and other hazards. I would 
support the USD(P) in developing these policies and coordinate the 
efforts within DOD with the Department of State, Department of Homeland 
Security (DHS), and DOE, and other entities that will be essential to 
execute this function successfully.

                   PROLIFERATION SECURITY INITIATIVE

    Question. The Proliferation Security Initiative (PSI) is an 
international effort to identify and interdict WMD and related 
materials.
    If confirmed, would you recommend that the PSI program continue, 
and if so, do you believe that it should be modified in any way?
    Answer. I agree with the 2010 National Security Strategy and the 
NPR Report, which state that the PSI should become a ``durable 
international effort.'' If confirmed, I will support the Department's 
continued lead role in organizing U.S. support for PSI Operational 
Experts Group activities, including interdiction exercises.
    Question. The absence of funding specifically identified for the 
PSI program has made it difficult for the Department and Congress to 
provide appropriate oversight.
    If confirmed, would you seek to establish a separate budget account 
for PSI? If not, why not?
    Answer. I understand that congressional oversight of the PSI 
program has been difficult and that the PSI activities have not always 
been clear or well-understood by Congress. If confirmed, I would seek 
to improve understanding of the PSI and to ensure that Congress has 
whatever information it needs to conduct appropriate oversight of PSI 
activities.

                  COOPERATIVE THREAT REDUCTION PROGRAM

    Question. If confirmed, what will your role be in implementing and 
overseeing the CTR program?
    Answer. If confirmed, I will provide departmental policy guidance 
for activities of the CTR program. My understanding is that the ASD/GSA 
works closely with the Director of the Defense Threat Reduction Agency 
and the ASD/NCB to ensure that the execution of the CTR program 
activities is consistent with policy guidance.
    Question. If confirmed, what changes, if any, would you recommend 
to the CTR program, including changes in legislative authorities, 
programs, or funding?
    Answer. Congress has taken steps to streamline CTR's authorities 
over the past several years, and I believe this process should 
continue. Congress has authorized the CTR programs to expand its 
activities beyond the traditional geographic focus on the states of the 
former Soviet Union. In carrying out this expanded authority, the DOD 
CTR program has expanded its biological defense work to address those 
challenges around the world. If confirmed, I will work with CTR's many 
stakeholders in the administration and in Congress to ensure that this 
expansion is conducted in coordination with other relevant entities and 
that it is carried out in a cost effective manner.

                     COMPREHENSIVE TEST BAN TREATY

    Question. If confirmed, what role will you play in any efforts to 
obtain Senate ratification of the Comprehensive Test Ban Treaty (CTBT)?
    Answer. If the Senate takes up the CTBT for consideration, and if I 
am confirmed, I would expect to play a significant role in presenting 
the views of the DOD to the Senate.
    Question. Would you support and/or advocate for the administration 
to pursue the ratification of the CTBT?
    Answer. The President set forth his agenda for nuclear security 
during his April 2009 address in Prague, Czech Republic. 
Nonproliferation was a central goal of this agenda, and U.S. 
ratification of CTBT would play an important part in that agenda. The 
NPR reflected the Department's commitment to the goal of ratifying the 
CTBT. I support the CTBT. If confirmed, I look forward to supporting an 
effort to ratify the CTBT when the Senate decides to take up the CTBT.

                                 RUSSIA

    Question. What areas of opportunity and cooperation do you believe 
the United States could take to improve overall U.S.-Russian 
relationships?
    Answer. ASD/International Security Affairs (ISA) leads OSD's 
involvement in defense relations with Russia. If confirmed, I will work 
with ASD/ISA in support of the Under Secretary of Defense for Policy in 
those areas that fall under the ASD/GSA including nonproliferation, 
nuclear security, and missile defense. I believe that the historic 
cooperation with Russia under the CTR program could help guide such 
future cooperation.
    Question. Would you support an expansion of the U.S. and Russian 
military-to-military relationship?
    Answer. While I do support such cooperation, my understanding is 
that the office of the ASD/GSA has minimal involvement in military-to-
military relations with Russia, and if confirmed, I would look to the 
ASD/ISA to guide such contacts and to support that office as needed.
    Question. What role do you expect to play, if confirmed, on these 
issues?
    Answer. If confirmed, I expect to work with the ASD/ISA, U.S. 
European Command, and the Joint Staff as appropriate, on any issue 
relating to nuclear policy and arms control, missile defense 
cooperation, combating WMD, and the space and cyberspace domains.

                             CYBERSECURITY

    Question. What are the main policy challenges facing DOD in the 
area of cybersecurity, both within the Department and with respect to 
the Federal Government as a whole?
    Answer. My understanding is that the Department's primary policy 
challenge is to determine how U.S. Government departments and agencies 
can best collaborate to provide for the cybersecurity of Federal 
Government systems and U.S. critical information infrastructure. The 
President's International Strategy for Cyberspace calls for a whole-of-
government approach to cybersecurity while ensuring the continued 
promotion of an open, interoperable, secure and reliable information 
and communications infrastructure. I am told that the Department is a 
full partner in these efforts, which include a commitment to protect 
the privacy and civil liberties of U.S. citizens.
    Question. What should the Defense Department's role be in defending 
the Nation against cyber threats? Should the Department play the lead 
role in stopping attacks from abroad through cyberspace, just as the 
Department defends the Nation from attack by missiles, aircraft, or 
ships?
    Answer. DOD has cyberdefense capabilities that make it an 
invaluable player in defending the Nation against cyber threats, but it 
should not be the lead in non-DOD cybersecurity. My understanding is 
that DHS is the lead for U.S. Federal Government and critical 
information infrastructure security, a designation with which I agree. 
The challenge for DOD is to leverage its cybersecurity capabilities to 
ensure that other agencies, under DHS leadership, are synchronized 
appropriately for the best defense of U.S. Government networks and 
critical infrastructure.
    Question. What should be the role of law enforcement and DHS in 
directing operations to defend the Nation in cyberspace?
    Answer. I understand that the DHS is the lead for the cybersecurity 
of non-DOD U.S. Federal systems, and critical infrastructure, a 
designation with which I agree. Law enforcement can play a key role in 
U.S. cyber defense by assisting in development of complete forensic 
information regarding a cyber-intrusion and should maintain its 
criminal investigative responsibilities. This is an essential step in 
formulating a U.S. policy and operational response. I am told that DOD 
organizations such as the Defense Cyber Crime Center have been working 
to improve collaboration with various law enforcement agencies within 
DHS and the Department of Justice to ensure enhanced cybersecurity of 
federal and critical information infrastructure systems.
    Question. What organizational and operational construct would allow 
multiple departments and agencies to mount an effective, unified 
defense of the Nation's cyber networks and resources?
    Answer. My understanding is that the administration's current 
organizational construct allows multiple departments and agencies to 
develop, implement, and maintain an effective, unified defense of our 
federal and critical information infrastructure networks and the 
resources that reside or pass through those networks. DOD leads this 
effort, developing plans to secure Federal Government (.gov) systems. 
My understanding is that DOD is responsible for the security of its 
networks, some classified government networks, and is currently engaged 
with the defense industrial base, through a pilot program, to look at 
the appropriate role for DOD to protect defense industrial base 
information systems. I would note that the legislation recently 
submitted by the President would, if enacted, address many of these 
issues, including the ability to share information.
    Question. In your view, is there a need for a strategy and doctrine 
for deterring foreign adversaries from engaging in attacks on the 
United States through cyberspace, just as there is a nuclear deterrence 
strategy and doctrine based on the threat of retaliation?
    Answer. Yes. I believe there is a need to develop a deterrence 
strategy in cyberspace. The President's International Strategy for 
Cyberspace states, ``The United States will ensure that all risks 
associated with attacking or exploiting our networks vastly outweigh 
the potential benefits'' and reserves the right to defend vital 
national assets as necessary and appropriate. If confirmed, I would 
devote considerable attention to developing appropriate policies and 
guidance to ensure that all DOD components are coordinated closely in 
this rapidly evolving aspect of our national security posture.
    Question. Should the United States have the ability, and announce 
the intention, to undertake offensive operations in cyberspace, through 
DOD, in retaliation against, or to defeat, foreign aggression in 
cyberspace? Does such doctrine exist today, in your view?
    Answer. The President's recently announced International Strategy 
for Cyberspace states that the United States will maintain the full 
spectrum of options for cyber deterrence, and that the United States 
will respond to hostile acts in cyberspace as we would to any other 
threat to our country. The strategy highlights that nations' inherent 
right of self-defense applies to cyberspace. If confirmed, I would 
devote considerable attention to developing appropriate policies and 
guidance to ensure that all DOD components are coordinated closely in 
this rapidly evolving aspect of our national security posture.
    Question. When do you expect the Department to have a policy and 
rules of engagement for offensive operations in cyberspace?
    Answer. My understanding is that DOD and the executive branch have 
existing policies and rules of engagement for cyberspace, but that 
further development and clarification may be useful. The Strategy for 
Operating in Cyberspace provides guidance on DOD's role in cyberspace. 
If confirmed, I will work with senior leaders in OSD, U.S. Cyber 
Command, U.S. Strategic Command, and the Joint Staff to ensure that 
rules of engagement are consistent with applicable international laws, 
and drafted to allow us to defend our Nation, our allies, our partners, 
and our interests.
    Question. Defending cyberspace implies the need for conducting 
surveillance in cyberspace to achieve the ability to warn of threats 
and to characterize them.
    Can surveillance in cyberspace be conducted effectively without 
impinging on the privacy interests of the American people?
    Answer. While this is a challenge, the privacy of U.S. persons 
should be protected. Balancing requirements for surveillance in 
cyberspace against privacy interests of the American people is a 
critical element of any policy or strategy for government operations in 
cyberspace. The balance between national security and privacy is one we 
have confronted many times before in other security domains. If 
confirmed, I will ensure that the Department's senior leadership is 
fully invested in decisionmaking on this essential civil liberties 
challenge.
    Question. In your view, will it be necessary to publicly disclose 
more information about the government's plans and methods for 
conducting surveillance in cyberspace in order to explain how civil 
liberties and privacy will be protected?
    Answer. While the public's understanding of the threat is growing, 
it is not clear to me at this time whether there is a good 
understanding of the actions that are taken or could be taken by the 
U.S. Government. If confirmed, I will devote all necessary attention to 
ensure that policies and procedures are appropriate to support public 
confidence in DOD's cyberspace activities.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD/GSA?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                      PREVENTING ANOTHER WIKILEAKS

    1. Senator McCain. Ms. Creedon, a cyber defense, or shield, should 
defend against insider threats, such as the downloading of classified 
documents in Wikileaks. Setting Department of Defense (DOD) computers 
to prevent unauthorized downloading or transmission of data would seem 
to be a necessary systemic precaution. What role would you expect to 
play as the Assistant Secretary in countering these kinds of insider 
threats?
    Ms. Creedon. No matter how strong we make our external defenses, we 
will constantly face an insider threat. DOD's recently released Defense 
Strategy for Operating in Cyberspace outlines top-level requirements to 
mitigate that threat. The strategy states that in order to deter and 
mitigate insider threats, DOD will strengthen its workforce 
communications, workforce accountability, internal monitoring, and 
information management capabilities.
    As Assistant Secretary of Defense for Global Strategic Affairs, I 
will work closely with the Office of the Under Secretary of Defense for 
Intelligence and the DOD Chief Information Officer, as well as our 
military departments, defense agencies, and combatant command partners, 
as we implement our Defense Strategy for Cyberspace Operations and 
defend against insider threats.

                       NUCLEAR DECLARATORY POLICY

    2. Senator McCain. Ms. Creedon, the longstanding nuclear 
declaratory policy of calculated ambiguity has been embraced by past 
administrations on a bipartisan basis and was strongly endorsed by the 
Perry-Schlesinger Commission in their 2009 report. Unfortunately, this 
administration, in my opinion, recklessly abandoned this longstanding 
policy in its 2010 Nuclear Posture Review (NPR) which asserted that the 
United States will not use or threaten to use nuclear weapons against 
non-nuclear weapons states that are party to the Nonproliferation 
Treaty (NPT), a shift in policy which some argue will lead our enemies 
to rapidly develop chemical and biological weapons. Do you support this 
significant change in our declaratory policy?
    Ms. Creedon. I support the change in declaratory policy that sends 
a strong message to Iran and any other future states parties that fail 
to comply with the NPT. Under the previous U.S. ``negative security 
assurance,'' the United States indicated it would ``not use nuclear 
weapons against non-nuclear-weapon states parties to the [NPT].''
    The previous policy statement implied that the United States would 
not consider as an option the use of nuclear weapons against Iran, a 
non-nuclear-weapon state party to the NPT, ``except in the case of an 
invasion or any other attack on the United States, its territories, its 
Armed Forces or other troops, its allies, or on a state towards which 
it has a security commitment, carried out or sustained by such a non-
nuclear-weapon state in association or alliance with a nuclear-weapon 
state.''
    The revised negative security assurance in the 2010 NPR addresses 
this issue by committing that the United States ``will not use or 
threaten to use nuclear weapons against non-nuclear weapons states that 
are party to the NPT and in compliance with their nuclear non-
proliferation obligations,'' thus leaving the door open to using or 
threatening to use nuclear weapons against non-nuclear states parties 
to the NPT, like Iran, that are in violation of the NPT.
    U.S. declaratory policy, as stated in the 2010 NPR, has a number of 
distinct audiences, including both potential adversaries we wish to 
deter, and allies and partners we wish to reassure. With respect to 
potential adversaries, the NPR affirmed that ``any state eligible for 
the assurance that uses chemical or biological weapons (CBW) against 
the United States or its allies and partners would face the prospect of 
a devastating conventional military response.'' In addition, the NPR 
states that the United States reserves the right to make any 
adjustments to this assurance that may be warranted by the evolution 
and proliferation of the biological weapons threat, and U.S. capacities 
to counter that threat.
    In the case of states that possess nuclear weapons and states that 
fail to comply with their nuclear nonproliferation obligations, the NPR 
makes clear that there remains a narrow range of contingencies in which 
U.S. nuclear weapons still play a role in deterring conventional or CBW 
attack against the United States or its allies and partners. This 
statement makes clear what the risks and consequences may be for those 
states considering the use of CBW against the United States, or its 
allies and partners. As such, the 2010 NPR is less a significant 
departure from previous declaratory policy than a refinement that takes 
into account present day challenges and future risks, while preserving 
U.S. flexibility. This is an evolution that I support.

    3. Senator McCain. Ms. Creedon, how does the new policy make us 
safer and deter the growing nuclear ambitions of rogue nations like 
North Korea and Iran?
    Ms. Creedon. The revised declaratory policy proclaims that states 
that do not comply with the NPT are not covered by the U.S. ``negative 
security assurance''. This change in policy makes clear that, in 
addition to sanctions, pursuing nuclear proliferation carries the 
additional risk that the United States may consider the use of nuclear 
in response to nuclear or non-nuclear attack.
    The 2010 NPR states that ``the United States . . . would only 
consider the use of nuclear weapons in extreme circumstances to defend 
the vital interests of the United States or its allies and partners.'' 
The NPR emphasizes that in cases where a country possesses nuclear 
weapons, but fails to comply with its nuclear nonproliferation 
obligations, there remains a narrow range of contingencies in which 
U.S. nuclear weapons may still play a role in deterring conventional, 
chemical, or biological weapon attacks against the United States, or 
its allies and partners. Together, these statements make clear what the 
risks and consequences may be for states considering the use or 
threatening the use of nuclear weapons or CBW against the United States 
or its allies and partners.

                             DEFENSE SPACE

    4. Senator McCain. Ms. Creedon, in your advance policy questions 
you were asked if you support arms control limitations on space 
capabilities. In your response, you stated that you support the 
principles outlined in the 2010 National Space Policy which clearly 
states that the administration will ``consider proposals and concepts 
for arms control measures if they are equitable, effectively 
verifiable, and enhance the national security of the United States and 
its allies.'' Do you agree that space capabilities--including the 
ground and space segments and supporting links--are vital to our 
national interests?
    Ms. Creedon. Yes. I agree with the President's 2010 National Space 
Policy statement that the sustainability, stability, free access to, 
and use of space are vital to U.S. national interests. Thus, any arms 
control measures should be evaluated in terms of our national interests 
to determine whether they would enhance our national security. If the 
terms of any such agreement would not enhance our national security 
objectives, I would not support the agreement.

    5. Senator McCain. Ms. Creedon, do you agree that freedom of action 
in space is as important to the United States as air power and sea 
power?
    Ms. Creedon. A key objective of the 2011 National Security Space 
Strategy, as I understand it, is to maintain and enhance the strategic 
national security advantages afforded to the United States by space in 
an environment that is increasingly congested, contested, and 
competitive. Space capabilities provide the United States and our 
allies unprecedented strategic advantages in national decisionmaking, 
military operations, and Homeland security. Similar to our air and 
naval systems, space systems provide national security decisionmakers 
with unfettered global access, and create an advantage by enabling a 
rapid and tailored response to global challenges. As the President's 
National Security Strategy makes clear, the sea, air, and space domains 
must be protected from those who would deny us access or use them for 
hostile purposes.

    6. Senator McCain. Ms. Creedon, are you committed to informing 
Congress prior to signing any multilateral commitments on space 
activities?
    Ms. Creedon. I am committed to keeping Congress fully informed in a 
timely fashion on efforts in this area.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss

                           FLY-BEFORE-YOU-BUY

    7. Senator Chambliss. Ms. Creedon, in your responses to the advance 
policy questions you commented on the Fly-Before-You-Buy approach to 
missile defense and, specifically, said that you agree that ``before 
new capabilities are deployed they must undergo testing that enables an 
assessment under realistic operational conditions against threat-
representative targets to demonstrate that they will be effective and 
reliable.''
    While I don't necessarily disagree with the Fly-Before-You-Buy 
approach, I do believe that missile defenses are fundamentally 
different than other DOD systems and that therefore our criteria for 
testing and fielding them should also be different.
    For example, if 95 percent of the time a fighter plane took off it 
was able to land successfully, but 5 percent of the time it crashed, 
that would be unacceptable and we would never tolerate it. However, if 
95 percent of the time we launched a ballistic missile interceptor it 
hit its target, but 5 percent of the time it missed, in my view that is 
a good track record and infinitely better than having no missile 
defense system at all, particularly given the exceptional complexity of 
hitting a missile with another missile in outer space.
    What are your thoughts on this and do you believe that, when it 
comes to protecting our country from a possible nuclear attack, and 
given the choice between fielding a system which although not perfect 
is very effective--or instead--fielding no system at all, that it may 
be acceptable to have different standards for what represents 
operationally effective and reliable with respect to ballistic missile 
defense than we have for some other DOD programs?
    Ms. Creedon. I agree that we should take a common-sense approach to 
standards for assessing what constitutes an operationally effective and 
reliable system. Operationally realistic testing presents a picture of 
the operational capabilities of the system. When a system is deployed, 
the warfighter needs to know its capabilities. Operationally realistic 
testing would also inform any future modifications needed to improve 
the performance of the system, either before or after deployment. It is 
my understanding that DOD is pursuing a balanced approach that seeks to 
conduct operationally realistic missile defense testing to ensure such 
systems are reliable, effective, and responsive to warfighter 
requirements. This approach recognizes that even less than perfect 
defenses can strengthen both deterrence and the protection of deployed 
forces, the U.S. Homeland, and allies. Moreover, given the grave 
consequences of a ballistic missile attack with WMD, DOD is executing a 
rigorous test program that will continue to improve our missile defense 
systems to make them as reliable and effective as possible.
                                 ______
                                 
    [The nomination reference of Madelyn R. Creedon follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 14, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Madelyn R. Creedon of Indiana, to be an Assistant Secretary of 
Defense, vice Michael Nacht.
                                 ______
                                 
    [The biographical sketch of Madelyn R. Creedon, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Madelyn R. Creedon
Education:
        <bullet> University of Evansville

                <bullet> September 1969-June 1973
                <bullet> BA awarded June 1973


        <bullet> Tulane University School of Law

                <bullet> September 1973-June 1974

        <bullet> St. Louis University School of Law

                <bullet> September 1974-June 1976
                <bullet> JD awarded June 1976
Employment Record:
        <bullet> Senate Committee on Armed Services, Counsel, January 
        2001-present
        <bullet> U.S. Department of Energy, National Nuclear Security 
        Administration, Assistant Administrator for Defense Programs, 
        June 2000-January 2001
        <bullet> Senate Committee on Armed Services, Counsel, March 
        1997-July 2000
        <bullet> U.S. Department of Energy, Associate Deputy Secretary 
        for National Security, November 1995-March 1997
        <bullet> Base Realignment and Closure Commission, General 
        Counsel, November 1994-November 1995
        <bullet> Senate Committee on Armed Services, Counsel, February 
        1990-November 1994
        <bullet> U.S. Department of Energy, Trial Attorney, July 1980-
        February 1990
        <bullet> Private practice of law, September 1977-July 1980
        <bullet> Alexandria City Attorney's Office, Law Clerk, March 
        1977-September 1977 (Approximately)

Honors and awards:
        <bullet> Department of Energy, Secretary's Achievement Award, 
        2001
        <bullet> Department of Energy, Distinguished Service Award, 
        1990
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Madelyn R. 
Creedon in connection with her nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Madelyn Raub Creedon.

    2. Position to which nominated:
    Assistant Secretary of Defense, Office of the Under Secretary of 
Department of Defense, Policy.

    3. Date of nomination:
    March 14, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 1, 1951; Indianapolis, IN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to James J. Bracco.

    7. Names and ages of children:
    Meredith Bracco Walsh, age 29.
    John Edward Bracco, age 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Broad Ripple High School, 1964-1969, High School Diploma
    University of Evansville, 1969-1973, BA
    Tulane University School of Law, 1973-1974
    St. Louis University School of Law, 1974-1976, JD

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Counsel, Senate Committee on Armed Services, January 2001-present
    Deputy Administrator for Defense Programs, National Nuclear 
Security Administration, July 2000-January 2001

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Trial Attorney, U.S. Department of Energy, July 1980-February 1990
    Counsel, Senate Committee on Armed Services, February 1990-November 
1994
    General Counsel, Defense Base Closure and Realignment Commission, 
November 1994-October 1995
    Associate Deputy Secretary of Energy, U.S. Department of Energy, 
October 1995-March 1997
    Counsel, Senate Committee on Armed Services, March 1997-July 2000

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Daughters of the American Revolution
    Women in Aerospace

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    DOE Secretary's Achievement Award, 2001
    DOE Distinguished Service Award, 1990

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Madelyn R. Creedon.
    This 13th day of April, 2011.

    [The nomination of Madelyn R. Creedon was reported to the 
Senate by Chairman Levin on August 2, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 2, 2011.
                              ----------                              

    [Prepared questions submitted to Alan F. Estevez by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently I see no specific changes in the act that I would 
recommend.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I see no specific changes in the act that I would 
recommend.

                                 DUTIES

    Question. Section 138a of title 10, U.S.C., provides that the 
Assistant Secretary of Defense for Logistics and Materiel Readiness is 
to serve as the principal advisor to the Secretary of Defense and the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) on logistics and materiel readiness in the Department of 
Defense (DOD).
    If confirmed as Assistant Secretary of Defense, what would you view 
as your principal responsibilities to the Secretary and the Under 
Secretary?
    Answer. If confirmed, I would fulfill the statutory 
responsibilities of being the principal advisor on logistics and 
materiel readiness issues to the Secretary and the USD(AT&L), and 
serving as the principal logistics official for DOD. In this capacity, 
my responsibilities would include providing oversight and developing 
policy for all logistics, maintenance, materiel readiness, strategic 
mobility, and sustainment support programs.
    Question. If confirmed, what other duties do you expect that the 
Secretary and the Under Secretary would prescribe for you?
    Answer. If confirmed, I would remain responsive to changes of 
mission and leadership direction. I would work to provide superior 
logistics support to the warfighter and find new ways to provide the 
goods and services we offer in a more efficient and cost effective 
manner. I strongly believe that logistics has been and will always be a 
key enabler to the warfighter.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my extensive experience in a variety of positions 
as a DOD logistician qualifies me to perform the duties of this 
position. I am currently serving as the Principal Deputy Assistant 
Secretary of Defense (Logistics and Materiel Readiness). In this 
capacity, I am responsible for guiding the transformation of DOD 
logistics processes to ensure cost-effective joint logistics support to 
support the warfighter.
    Furthermore, I have served in every leadership position within the 
Office of the Assistant Secretary of Defense for Logistics and Materiel 
Readiness during my tenure in the Office of the Secretary of Defense 
(OSD). I understand fully the linkages between different logistics 
capabilities, as well as the relationship between the Department, the 
Services, our interagency partners, and Congress. My experience 
provides me with a grounded perspective and insight into DOD 
operations, allows me to quickly assess a diverse range of issues, and 
make the rapid but informed decisions needed to support our national 
interests. I have also worked extensively with the commercial sector to 
understand best logistics practices across a wide range of industrial 
and commercial activities.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. I believe I am prepared to commence these duties, if 
confirmed. I would embrace this position with enthusiasm and energy.

                             RELATIONSHIPS

    Question. If confirmed, what would your relationship be with:
    The Secretary of Defense.
    Answer. If confirmed, I would serve as the principal advisor to the 
Secretary of Defense on logistics and materiel readiness issues within 
the DOD.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would serve as the principal advisor to the 
USD(AT&L) on all logistics and materiel readiness issues in DOD. I 
would also monitor, review, and provide oversight of all logistics, 
maintenance, materiel readiness, and sustainment support programs 
within DOD, in accordance with applicable DOD policies. In addition, I 
would assist the USD(AT&L) in the performance of his duties relating to 
acquisition and technology (logistics and materiel readiness) in any 
other capacity that he might direct.
    Question. The Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Answer. If confirmed, my relationship with the Principal Deputy 
USD(AT&L) would be the same as that described above in relation to the 
USD(AT&L).
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense for Personnel and Readiness so that we can both carry out 
our statutory obligations relating to readiness.
    Question. The Director for Logistics (J4), the Joint Staff.
    Answer. If confirmed, my relationship with the Director for 
Logistics (J4), the Joint Staff, would be based on my role as principal 
advisor to the Secretary of Defense and the USD(AT&L) on logistics and 
materiel readiness in DOD, and as the principal advisor to the Chairman 
of the Joint Chiefs of Staff on logistics and materiel readiness.
    Question. The Director for Operational Plans and Joint Force 
Development (J7), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Operational Plans and Joint Force Development, 
the Joint Staff, to ensure that DOD logistics and materiel readiness 
policies are coordinated with operational planning and joint force 
development requirements.
    Question. The Director for Force Structure, Resources, and 
Assessment (J8), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Force Structure, Resources, and Assessment (J8), 
to ensure DOD logistics and materiel readiness policies are coordinated 
with force structure and resource requirements.
    Question. Commander, U.S. Transportation Command (TRANSCOM).
    Answer. If confirmed, I would expect to continue to work closely 
with the Commander, TRANSCOM, to ensure seamless support to meet 
warfighter requirements.
    Question. The Defense Logistics Agency.
    Answer. If confirmed, I would exercise authority, direction, and 
control over the Defense Logistics Agency through its Director.
    Question. The Army Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commanding General, Army Materiel Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with Army 
materiel requirements.
    Question. The Naval Sea Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Sea Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Navy materiel 
requirements.
    Question. The Naval Air Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Air Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Navy materiel 
requirements.
    Question. The Marine Corps Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Marine Corps Systems Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with Marine 
materiel requirements.
    Question. The Air Force Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Air Force Materiel Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Air Force materiel 
requirements.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Logistics and Materiel 
Readiness?
    Answer. If confirmed, I would anticipate the major challenges to 
be:

    (1)  Ensuring our warfighters engaged in contingency operations are 
provided with the best possible logistics support in an era of limited 
resources. While my key focus in this area would be on our drawdown of 
forces and transition to the Department of State in Iraq, and continued 
sustainment of our operations in Afghanistan, I would ensure that we 
have logistics capability to support any contingency or humanitarian 
operation.
    (2)  Integrating lifecycle management and long-term logistics 
planning into the acquisition process.
    (3)  Optimizing the DOD supply chain so that it is globally 
responsive to the demands of our warfighters.

    While focused on these priorities, I would work to ensure that 
support was seamless, cost-effective, and timely. I would strive to 
lower costs and continuously evaluate ways to improve support.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would:

    (1)  Continue to optimize all elements of the DOD's logistics 
community to include commercial partners and build on measures that 
would effectively support our warfighters at the best value to the 
American taxpayers.
    (2)  Continue to partner with our Services, the OSD agencies, 
program offices, and industry partners to integrate long-term lifecycle 
management considerations early on and throughout the acquisition 
process.
    (3)  Continue to manage supply chain policy and refine our 
logistics processes to ensure that the DOD operates at its optimum 
capacity while providing seamless support to the warfighter.

    I would continue to streamline operations and enhance capabilities, 
where appropriate. We continue to work to find more joint solutions 
from procurement to day-to-day logistics support. This is a natural 
progression from the way we fight as a joint force to the way we must 
jointly provision in the future.

       DEGRADATION OF EQUIPMENT READINESS DUE TO OPERATIONS TEMPO

    Question. The committee has received testimony from senior DOD 
officials and the Military Services citing the effects of operations 
tempo on the materiel readiness of equipment deployed in support of 
contingency operations.
    What is your understanding of the extent to which current 
operations are impacting the service life of major equipment items?
    Answer. The engagement of all Services during nearly 10 years of 
combat since September 11 does have lifespan implications. High usage 
of equipment based on an aggressive operational tempo, coupled with the 
harsh environments in which these systems operate, create logistical 
challenges that the Department must deal with on a continuing basis in 
order to ensure readiness of critical systems. This is especially true 
of ground combat equipment and helicopters, but also applies to key Air 
Force and Navy platforms.
    Question. If confirmed, what would your approach be to regenerating 
materiel readiness that has been degraded by operations tempo?
    Answer. If confirmed, I would work to ensure that we reset our 
systems to a level where we can adequately support the Nation's 
objectives. After 10 years of conflict we must realize that many of our 
systems have been degraded and are in need of extensive maintenance in 
order to bring them back to an acceptable level of operational 
readiness. DOD will need to make sure that dollars are spent wisely to 
gain the highest degree of readiness possible.

                  DRAWDOWN, RESET, AND RECONSTITUTION

    Question. The military departments face a major challenge in 
resetting and reconstituting their equipment as they draw down their 
forces in Iraq and Afghanistan. The Army and the Marine Corps 
anticipate that this effort will continue for several years beyond the 
end of military operations.
    Do you believe that the Army and the Marine Corps have set aside 
adequate levels of funding in their budgets for fiscal year 2012 and 
future years to meet anticipated reset and reconstitution requirements?
    Answer. Reset and reconstitution of both Army and Marine Corps 
equipment is dependent upon Overseas Contingency Operations (OCO) or 
supplemental funding, as baseline budgets are insufficient to cover 
these costs. We must expect to fund reset for 2 to 3 years beyond the 
end of major contingency operations.
    Question. If not, what steps do you believe the Department should 
take to ensure that this effort is successfully completed in a timely 
manner?
    Answer. Currently, the depots and reset facilities are workloaded 
to satisfy the Services' readiness requirements within available 
funding allocations. To ensure work is accomplished in a timely manner, 
we must continuously improve our processes while ensuring that adequate 
funding (from both base and OCO accounts) is available. If confirmed, I 
would ensure we request the appropriate resources, reduce logistics 
operating costs, reduce total maintenance and supply-chain cycle-times, 
and increase the effectiveness of all of our programs.

                 AIR FORCE AND NAVY MAINTENANCE FUNDING

    Question. In recent years, the Navy and Air Force appear to have 
significantly underfunded readiness accounts for maintenance and repair 
of ships and aircraft and relied upon Congress to provide additional 
funding in response to unfunded requirements lists. As the country 
faces an increasingly difficult budget situation, it is likely to 
become increasingly difficult for Congress to address these unfunded 
requirements.
    Do you believe that maintenance and repair of ships and aircraft 
has received an appropriate level of priority in the budget processes 
of the Navy and the Air Force?
    Answer. The Navy and the Air Force continue to plan for and request 
sufficient funding to manage the maintenance and repair of ships and 
aircraft.
    However, reset and reconstitution of both Navy and Air Force 
equipment is dependent upon OCO or supplemental funding, as baseline 
budgets are insufficient to cover these costs.
    Question. If confirmed, what steps, if any, would you take to 
address this issue?
    Answer. If confirmed, I would work to ensure we request adequate 
resources to allow us to maximize readiness. I would make certain that 
we strive to reduce logistics operating costs, reduce total maintenance 
and supply-chain cycle-times, and increase the effectiveness of all of 
our programs.

                   DEPOT MAINTENANCE STRATEGIC PLANS

    Question. The Government Accountability Office (GAO) has reported 
that the Military Services lack clear and comprehensive depot 
maintenance strategic plans addressing capital investment in facilities 
and equipment, implementation of a methodology to revitalize and 
resource organic depot facilities, public-private partnerships, 
workforce planning and development, and the integration of logistics 
enterprise planning systems.
    What is your understanding of the extent to which the Military 
Services have updated or revised their depot maintenance strategic 
plans to address current and future reset requirements, the type and 
mix of equipment expected to return for reset, equipping priorities, 
required reset funds for operations and maintenance, and the impact of 
contractor support work to reset equipment?
    Answer. The Military Services regularly update their depot 
maintenance strategic plans. I believe they are generally prepared to 
adjust to new equipping priorities and have been successfully 
performing reset and other maintenance functions for the past 8 years. 
The appropriate mix of organic and contractor support is also 
conforming to the 50/50 statute as well.
    Question. Do you believe that the steps taken by the Military 
Services are adequate, or are additional measures needed?
    Answer. Yes, I do believe that the steps the Services are currently 
taking are appropriate given the warfighting requirements and available 
resources. If confirmed, I would look for additional opportunities to 
seek efficiencies and increase effectiveness across the logistics 
enterprise.
    Question. What is your understanding of the extent to which the 
Military Services have assessed the effects of reset on the baseline 
budgets, competing demands to reset equipment to meet unit readiness 
goals, the preservation of core capabilities, and the risk level that 
organic depot maintenance facilities may be able to accommodate in 
order to complete reset workload requirements?
    Answer. Reset for all Services is reliant on OCO funding as well as 
on baseline budgets. Currently, the depots and reset facilities are 
workloaded to satisfy the Services' readiness requirements within 
available funding allocations. To ensure work is accomplished in a 
timely manner we must continuously improve our processes while ensuring 
that adequate funding (from both base and OCO accounts) is available. 
We must expect to fund reset for 2 to 3 years beyond the end of major 
OCOs.
    Question. Do you believe that the steps taken by the Military 
Services are adequate or are additional measures needed?
    Answer. I believe that the Services are taking appropriate steps 
and performing the correct activities to ensure long-term sustainment 
of equipment. If confirmed, I would ensure we request the appropriate 
resources, reduce logistics operating costs, reduce total maintenance 
and supply chain cycle times, and increase the effectiveness of all of 
our programs.
    Question. What is your understanding of the extent to which the 
depots' plans address the need to manage workload as current operations 
draw down and decreases in maintenance requirements when these 
operations end?
    Answer. As a Department, we are preparing to draw down prudently to 
ensure the warfighter is supported and equipped properly. Air Force and 
Navy requirements will change very little due to the nature of 
commitments placed on them in Operation New Dawn (OND)/Operation 
Enduring Freedom (OEF). However, the Army and Marine Corps requirements 
will decrease in direct proportion to the drawdown of deployed forces. 
There will be a 2- to 3-year enduring requirement during the post-
drawdown phase to ensure that all reset and other maintenance work is 
completed and forces are readied for future requirements. If confirmed, 
I would look for additional opportunities to seek efficiencies and 
increase effectiveness across the logistics enterprise.
    Question. Do you believe that the steps taken by the Military 
Services are adequate or are additional measures needed?
    Answer. Yes, I do believe that the steps the Services are currently 
taking are appropriate given the warfighting requirements and available 
resources. If confirmed, I would continue to examine this issue closely 
to identify whether additional measures are needed.

                    ARMY UNIT EQUIPMENT REQUIREMENTS

    Question. As the pace of overseas operations declines, the Army is 
resetting equipment and rebuilding the readiness of its forces. Two 
documents--Modification Tables of Organization and Equipment (MTOE), 
and Table of Distribution and Allowances (TDA)--provide the basic 
personnel and equipment requirements against which on-hand personnel 
and equipment are measured in determining unit readiness. During our 
operations in Iraq and Afghanistan, U.S. Central Command repeatedly 
requested force capabilities that did not align well with Army MTOEs.
    What is your understanding of the action the Army is taking to 
review and update unit requirements so that they better reflect the 
needs of the combatant commands?
    Answer. All Services, including the Army, continually adjust to 
meet the changing requirements of the mission. Multiple DOD/Service 
Centers ensure that the lessons learned are incorporated into Service/
DOD doctrine, as appropriate. These efforts shape the current and 
future training of our men and women in uniform, as well as the 
equipment that they use. For example, when improvised explosive devices 
(IED) became the prevalent threat to the health and safety of our 
troops engaged in OND/OEF, service-specific tactics, techniques, and 
procedures (TTP) changed to meet that threat and the acquisition and 
logistics arms of the DOD partnered to produce multiple variants of the 
Mine Resistant Ambush Protected (MRAP) family of vehicles. The Army has 
ongoing work to ensure its ability to sustain items acquired to meet 
urgent operational needs. The Department continues to work to train and 
equip units for emerging and nontraditional missions as outlined in the 
Quadrennial Defense Review.
    Question. Do you believe that this action is adequate or are 
additional measures needed?
    Answer. Yes, this action is appropriate.
    Question. If confirmed, how will you approach the task of ensuring 
that unit equipment requirement documents (MTOE and TDA) are updated in 
sufficient time to be considered in the development of future budget 
requests?
    Answer. This issue is largely a Service responsibility and they 
must determine what equipment they need to support the operational 
mission. However, I recognize that rapidly developing threats require 
the rapid fielding of systems to meet them. We are doing this now by 
integrating with organizations like the Joint Improvised Explosive 
Device Defeat Organization (JIEDDO), and with our Joint Rapid 
Acquisition Cell, where we address these types of issues early on to 
improve systems and support the warfighter. If confirmed, I would plan 
to continue this work.

                  AIRCRAFT CONDITION-BASED MAINTENANCE

    Question. DOD helicopters are under high demand and flying well 
beyond their anticipated flying hours, and the Army is currently 
engaged in an effort to install digital source collectors (DSC) on its 
manned aircraft (AH-64 A, AH64 D, CH-47 D, CH-47 F, MH-47 G, UH-60 A, 
UH-60 L, UH-60 M, MH-60 L, MH-6, and OH-58 D) in order to conduct 
Condition-Based Maintenance (CBM). The DSC are being installed on all 
new production utilizing procurement appropriations. However, the 
funding of the transmission, storage, and analysis of the data is 
minimally funded and heavily leveraged with OCO funding at this point. 
An Army Acquisition, Logistics, and Technology report released this 
month stated, ``there is clear evidence that CBM+ technologies and 
procedures have avoided at least three catastrophic Class A accidents 
that would have resulted in the total loss of the aircraft.''
    Do you believe the Army should extend the Product Improvement Pilot 
Program beyond fiscal year 2013? If so, why?
    Answer. The Army has taken advantage of the current authority and 
is in the process of completing an assessment of the Aviation Pilot 
Program. As requested by current legislation, the Army will provide a 
report and recommendation to Congress in fiscal year 2012. I believe 
the Army's current direction is prudent and will allow both the 
Department and Congress ample opportunities to take action and make 
corrections as necessary in the future.
    Question. What is your understanding of the Army's plans to fund 
the transmission, storage, and analysis of the data that are important 
to improving maintenance efforts, decreasing maintenance and spare part 
costs, and increasing readiness?
    Answer. The Army funds Condition-Based Maintenance (CBM) functions, 
such as CBM data storage, analysis, and transmission, within the budget 
cycle. The long-term strategy for CBM data transmission, storage, and 
analysis includes the integration of actionable logistics data in a 
future increment of the Global Combat Service Support-Army (GCSS-A). 
The engineering unique CBM data transmission and storage requirements 
to enable weapon system performance analyses are separately funded from 
the GCSS-A.
    Question. Do you believe that the planned level of funding is 
adequate for this purpose?
    Answer. The fiscal year 2012 President's budget request is 
sufficient to meet our Condition-Based Maintenance data storage, 
analysis, and transmission critical requirements. If confirmed, I would 
work with the Army to adequately fund Condition-Based Maintenance 
Programs.
    Question. What is your understanding of the results of the 
condition-based maintenance effort thus far in terms of readiness and 
cost-savings?
    Answer. The beneficial outcomes of the Army's Aviation Condition-
Based Maintenance program include a 3 to 12 percent reduction in Non-
Mission Capable Maintenance rate, a 5 to 8 percent increase in fleet 
readiness, and a 1 to 4 percent reduction in Maintenance Test Flight 
Hours. These results have increased the Army's combat power, reduced 
maintenance costs, and have provided critical information that avoided 
catastrophic failures during flight.
    Question. What do you believe should be the overall goal of the 
Condition-Based Maintenance effort in the Army?
    Answer. I believe the overall goal of Condition-Based Maintenance-
Plus (CBM+) should be to increase combat power by performing 
maintenance and supply functions based upon evidence of need. The Army 
has set forth four CBM program objectives to meet this goal:

    (1)  Decrease the maintenance burden
    (2)  Increase platform availability and readiness
    (3)  Enhance safety
    (4)  Reduce operations and support costs

                        ARMY PREPOSITIONED STOCK

    Question. As contingency operations in Iraq wind down, the Military 
Services have begun reconstituting their prepositioned equipment. At 
the same time, the Military Services have begun to review future 
requirements for their prepositioned stocks. We also understand that 
DOD also intends to include prepositioned stock in some of its 
department-wide strategy planning, and has a number of initiatives 
underway to improve the mobility system, responsiveness to forces, and 
effectiveness of prepositioned capabilities.
    What is your understanding of the extent to which the Department is 
working with the Military Services to develop an integrated requirement 
for prepositioned stocks that is based on a Department-wide strategy?
    Answer. The Department is currently conducting a prepositioning 
study that has a high probability of reshaping the future landscape of 
prepositioning programs. This initiative, The Comprehensive Materiel 
Response Plan (CMRP), is a VCJCS-directed and TRANSCOM/DLA-led study 
aimed at developing a comprehensive plan for DOD materiel positioning 
and distribution.
    Question. Do you believe that the Army has adequately assessed 
which of the many pieces of nonstandard equipment that were purchased 
to meet urgent warfighter needs should be added to the prepositioned 
stock sets?
    Answer. The assessment of which equipment goes into prepositioned 
stocks is generally driven by operational vice logistics 
considerations. All non-standard equipment the Army has procured is 
being systematically reviewed as part of the Army's Capabilities 
Development for Rapid Transition (CDRT) process. One of the possible 
outcomes for materiel going through CDRT is to be selected for stockage 
in Army Prepositioned Stock (APS). Probably the best example of 
nonstandard equipment being selected for APS is the MRAP--in fact, the 
majority of the total MRAP vehicle population will be positioned into 
global APS sets.
    Question. What additional reset and sustainment resources will be 
needed to add to these stocks?
    Answer. In order for the Army to complete its APS Strategy 2015, 
sets used in support of current operations will require the 
continuation of OCO funding to ensure the reset of equipment for future 
use.
    Question. Do you believe that these new requirements are 
appropriately accounted for in the APS Strategy 2015?
    Answer. I believe the Army is incorporating new requirement in APS 
2015. Currently, new requirements in the Army's APS sets include MRAP 
vehicles, Long Term Armor Strategy (LTAS) Tactical Wheeled Vehicles, 
and Counter Measure Electronic Warfare equipment. The Army continues to 
modernize its APS in accordance with warfighting strategy and 
priorities.
    Question. In your view, has the Army identified adequate funding to 
meet its plan of reconstituting its prepositioned stocks around the 
world by 2015?
    Answer. The Army is counting on the reset of theater retrograded 
equipment from OND and OEF in order to fill its Army Prepositioned 
Stock strategic requirements. In order for the Army to complete its APS 
Strategy 2015, sets used in support of current operations will require 
the continuation of OCO funding to ensure the reset of equipment for 
future use. Most of the equipment will come to the Army's Army 
prepositioned stock inventory from depot stocks or equipment already 
purchased.
    Question. What steps, if any, would you take if confirmed to 
address this issue?
    Answer. Prepositioning decisions are based on warfghting strategy 
and requirements that are informed by logistics capabilities. If 
confirmed, I would shape the future of prepositioning strategy by 
leveraging efforts such as the Comprehensive Material Readiness Plan to 
ensure our policies on prepositioned equipment provide the Services 
with the overarching guidance they need to make informed programming 
decisions. L&MR is currently incorporating improvements, including new 
reporting procedures that will provide Congress with greater insight 
into the Services prepositioning program.

       DEFENSE LOGISTICS AGENCY FULFILLMENT OF SPARE PARTS ORDERS

    Question. Air Force Logistics Centers (ALC) have expressed 
frustration over DLA's inability to deliver some parts on time to the 
ALCs. DLA achieves a 94 percent fill rate for spare parts, however, the 
remaining 6 percent can occasionally ground an aircraft. Some parts can 
take well over a year to arrive at the ALCs and it appears that DLA 
will not order parts until the aircraft reaches an ALC. As a result, 
the Air Force is sometimes forced to cannibalize a part off of one 
aircraft to repair another.
    What is your view of DLA's track record on delivering parts to the 
Air Force's ALCs?
    Answer. DLA has acknowledged that there is room for continued 
improvement in delivering parts to the Air Force ALCs. It is working 
closely with the Air Force to improve performance and is sharply 
focused on the supply chain management planning activity. To accomplish 
this, DLA conducts senior leadership engagements to review issues of 
major importance to the Air Force. These engagements have improved 
demand forecasting and helped to standardize critical planning 
processes.
    The Air Force and DLA must continue to partner with one another to 
improve demand and supply chain processes. While we still have a way to 
go to improve our collaborative demand planning processes, the focus is 
there and we are seeing benefits.
    Question. What changes, if any, do you think are needed to improve 
DLA's performance in this regard?
    Answer. DLA is continuously working with the Air Force to improve 
performance. The efforts to standardize critical planning processes 
have improved demand forecasting. The Air Force and DLA will continue 
to partner to improve the supply chain process through synchronizing 
workflows between the Air Force industrial customers and DLA's 
distribution points. If confirmed, I would work to ensure that DLA 
remains responsive to the Air Force's needs.
    Question. What is your view of the High Velocity Maintenance (HVM) 
program and the role that it can play in expediting needed parts for 
aircraft maintenance?
    Answer. I fully support the HVM program and believe it is extremely 
beneficial to both the Air Force and DLA. It will provide 
predictability for the respective System Program Office's plan to 
induct weapon systems (down to the specific tail number) for repair 
which will improve demand planning accuracy. Improved demand planning 
accuracy will allow DLA to optimize its supply chain response to future 
customer requirements.

        BALANCED SCORECARD AND LOGISTICS PERFORMANCE MANAGEMENT

    Question. DOD's logistics leadership has adopted the Balanced 
Scorecard concept as one of the important components of logistics 
performance management. The process of adapting and implementing the 
Balanced Scorecard in DOD is almost 2 years old.
    In your view, what are the benefits of the Balanced Scorecard for 
logistics performance management?
    Answer. While the Department does not currently use a formalized 
Balanced Scorecard, we do apply a performance framework to logistics 
which has many of the same attributes and objectives of the Balanced 
Scorecard. Performance is monitored quarterly against defined goals and 
targets for response time to customer (warfighter) requests. These 
include the total time for a customer to receive an ordered item 
(Customer Wait Time) and the percentage of orders filled to customer 
specification (Perfect Order Fulfillment). This framework is 
implemented as part of the Department's Strategic Management Plan and 
Performance Budget, and the performance measurements are reviewed by 
senior logisticians in the Services and DLA, by logistics leadership in 
OSD, and by the Deputy Chief Management Officer, as part of the process 
of monitoring Department-wide performance goals.
    Question. Do you believe that implementation of the Balanced 
Scorecard in DOD can be accelerated?
    Answer. We do not intend to accelerate implementation of a 
formalized Balanced Scorecard. However, as described above, we apply a 
performance framework for logistics which has many of the same 
attributes and objectives of the Balanced Scorecard. Performance is 
monitored quarterly against defined goals and targets. To meet these 
goals and targets, we are implementing key initiatives such as the 
Comprehensive Inventory Management Improvement Plan, automated 
identification technology, and improved Operational Contract Support 
(OCS), and we continue to seek ways to accelerate the time to implement 
fully these key initiatives.

                    CORROSION PREVENTION AND CONTROL

    Question. Congress and DOD have significantly increased their 
emphasis on the prevention and management of corrosion in equipment and 
materiel of the Services. Actions to address corrosion challenges 
include establishment of a central corrosion program management office 
and the institutionalization of corrosion prevention and mitigation as 
a key component of the Department's Planning, Programming, Budgeting, 
and Execution process.
    What is your understanding of the challenge to the readiness of the 
Military Services as a result of corrosion in equipment and materiel 
and the extent to which the Services are coordinating their efforts?
    Answer. Corrosion has a negative impact on readiness, cost, and 
safety. The Department has completed analyses over the last 5 years 
which provide the Services with detailed data on the cost of corrosion 
for weapon systems.
    Clearly, corrosion is a growing challenge that every weapon system 
in the DOD faces and, as such, the Department is aggressively working 
to share knowledge between the Services and commercial entities all 
aimed at finding the best solutions at the least cost to the 
Department.
    Question. If confirmed, what would be your relationship with the 
Director of Corrosion Policy and Oversight Office?
    Answer. If confirmed, I would collaborate with the Director of 
Corrosion Policy and Oversight in several activities. Since corrosion 
is closely linked to sustainment, I would continue to foster this 
partnership.
    Question. If confirmed, how would you assess the implementation and 
effectiveness of corrosion prevention and control efforts in programs 
under your purview and, working with other responsible officials, 
address identified areas of concern?
    Answer. If confirmed, I would aggressively attack this growing 
logistics issue by collaborating with the Director of Corrosion Policy 
and Oversight and through corrosion prevention control forums.

                     RADIO FREQUENCY IDENTIFICATION

    Question. Congress has supported DOD's Radio Frequency 
Identification (RFID) program in order to improve the visibility and 
identification of, and access to, equipment and supplies.
    What experience and familiarity do you have with RFID technologies 
and their implementation?
    Answer. I have been a leader in DOD's efforts to implement RFID 
technologies since the early mid-1990s, implementing the world's 
largest active RFID network to provide in-transit visibility to 
combatant commanders and implementing satellite tracking and intrusion 
detection devices to reduce pilferage in hostile regions of the world. 
Under my leadership, we have leveraged commercial global RFID standards 
to align public and private sector standards, implemented passive RFID 
at strategic distribution depots, and continued to focus on the use of 
RFID to add enterprise business value.
    Question. In order for RFID technology to be effective, it must be 
used consistently throughout DOD and the Military Services. One of the 
problems highlighted in ongoing contingency operations is a lack of 
understanding of RFID technology and how to use the devices, 
particularly in field operations.
    If confirmed, what actions would you take to ensure that 
standardized training on the use of RFID and other tracking 
technologies is being provided to all necessary military and civilian 
logistics personnel?
    Answer. I continue to lead efforts to improve the tracking of key 
assets through the use of RFID across the spectrum of DOD operations, 
especially in Iraq and Afghanistan. I lead a senior-level summit with 
the Joint Staff J-4 to continue to improve in-transit visibility.
    Currently, our forces train on the use of RFID technologies. We 
apply active RFID tags to our sustainment shipments bound for overseas 
destinations even during peacetime, and use them at major training 
centers as a means to ensure soldiers are trained before they are 
deployed. If confirmed, I would continue to focus on ensuring our 
forces are properly trained on the use of our tracking capabilities.

                       DOD INDUSTRIAL FACILITIES

    Question. Each of the Military Departments has its own maintenance 
depots, shipyards, and air logistics centers to help maintain its 
equipment. The Military Departments also contract with the private 
sector for maintenance support. LMI recently completed a 
congressionally-directed review of depot maintenance issues and 
recommended significant changes.
    What are your views of the LMI study?
    Answer. The study made specific recommendations to DOD that it felt 
would improve the depot maintenance processes. Overall, the study 
provided DOD with a review of the organic depot maintenance environment 
and raised broad issues that we now must more fully assess in the 
context of the Department's related and ongoing logistics support 
improvements and efficiency initiatives. We are assessing their 
recommended follow-on policy and legislative implementation activities 
for feasibility.
    Question. What changes, if any, do you plan to institute, if 
confirmed, in response to the recommendations of the LMI study?
    Answer. Given the far-ranging and long-term implications of any 
changes, the Department is working through a very deliberate process to 
determine the most appropriate way forward. If confirmed, I would 
continue to shape this process.

     DATA VALIDATION FOR DEPOT MAINTENANCE PUBLIC-PRIVATE WORKLOAD 
                          DISTRIBUTION REPORT

    Question. Section 2466 of title 10, U.S.C., directs the Secretary 
of Defense to submit a report to Congress by April 1 of each year 
outlining the percent distribution of depot-level maintenance and 
repair workload between the public and private sectors for the 
preceding fiscal year and the projected distribution for the current 
and ensuing physical years. One of the continuing problems noted in the 
preparation of this report is the validity and accuracy of data 
submitted by the Services. As a result, the actual percentage of work 
completed at public depots is less than what is reported by the 
department in some cases.
    If confirmed, what steps will you take to ensure the accuracy of 
DOD public-private workload distribution reporting?
    Answer. The Department has taken steps to improve the accuracy of 
these reports. These steps include:

        <bullet> Improved guidance and instructions. Detailed 
        instructions now accompany our annual data call that supports 
        this reporting;
        <bullet> Third-party review by Military Service audit agencies 
        is required;
        <bullet> Emphasis on prompt and proper training for those 
        responsible for developing the report; and
        <bullet> The use of a 2 percent ``trigger'' for increased 
        oversight--a Military Service must submit a plan to OSD 
        identifying actions taken to ensure compliance if they are 
        within 2 percent of the limitation.

    In their last audit in November 2006, the GAO found only one error 
in our reporting that amounted to approximately \1/2\ of 1 percent of 
the private sector share of the Army's workload.
    If confirmed, I would plan to send Congress the most accurate data 
available on depot maintenance and public-private workload 
distribution.

                    DEFENSE PERSONAL PROPERTY SYSTEM

    Question. After many years of costly development, DOD in 2009 
implemented the Defense Personal Property System (DPS) which is a web-
based system for managing personal property moves for all DOD 
personnel. The DPS incorporates numerous improvements including 
contractual awards to movers based on satisfactory performance, not 
lowest bid; full replacement value as the standard for lost, stolen, or 
severely damaged personal property; on-demand web-based move 
counseling; and many other features. An important means of evaluating 
who the best and worst moving contractors are in DPS is satisfaction 
surveys that should be submitted by DOD personnel who have completed 
permanent change-of-station moves.
    What is your understanding of the cost-efficiency of the DPS and 
whether its reliance on web-based systems has produced any savings for 
the Services?
    Answer. DPS was intended as a quality-of-life initiative. However, 
DPS drives a more competitive rate environment and the Department has 
realized a savings of $300 million since implementation in April 2009, 
and continues to realize savings of more than $20 million per month.
    Question. What is your understanding of the current return rate of 
satisfaction surveys by DPS customers?
    Answer. The overall customer satisfaction survey return rate for 
the last 12 months has been gradually improving, and is now at 25 
percent.
    Question. If the rate is below 50 percent, to what do you attribute 
the inability to achieve a higher rate of return and do you believe 
that the current rate of return jeopardizes the ability to distinguish 
good and bad movers?
    Answer. Although the current 25 percent survey return rate is 
statistically valid and provides the Department with the ability to 
distinguish between good and bad movers, a higher return rate would 
optimize the carrier selection process by awarding more business to 
higher performing movers. The Department, in collaboration with 
industry, has set a new survey return goal of 35 percent, which we 
believe is achievable.
    Question. What methods do you think could properly be used to 
improve the survey return rate?
    Answer. In addition to setting a customer survey return rate goal 
of 35 percent, the Department is communicating the importance of 
completing the customer satisfaction survey via entitlement counseling, 
on-site inspections, 24/7 call centers, automatic email alerts, 
brochures, and overseas commercials on the Armed Forces Network. The 
Department is using every possible opportunity to remind customers 
about the importance of completing the customer satisfaction survey.
    Question. What is your understanding of actions being taken by 
TRANSCOM and the Services to improve the performance and utility of 
DPS?
    Answer. The Department is constantly looking for ways to improve 
DPS for all DOD and industry users. We established a General Office 
Steering Committee that meets regularly to prioritize work and to steer 
the program. An example of a recent improvement that TRANSCOM and the 
Military Services have made is increasing the bandwidth to allow more 
users on the system, which results in improved DPS response times. 
Another improvement is that the Department is leveraging DPS to 
transition household goods storage invoicing and payments from a manual 
to electronic process.

         LOGISTICS SUPPLY ROUTES FOR OPERATIONS IN AFGHANISTAN

    Question. Logistics supply for ongoing operations in Afghanistan 
present a number of difficult issues, including the difficulty of 
transporting cargo through neighboring countries, security issues on 
Afghan roads, unreliable transportation and security contractors, 
limited airfield infrastructure within Afghanistan, synchronizing 
arrival of units with equipment, and competing logistics priorities in 
a coalition environment.
    What role do you expect to play, if confirmed, in addressing these 
logistics challenges?
    Answer. If confirmed, I would continue to focus on operations in 
support of Afghanistan.
    While understanding that Afghanistan is a challenging logistical 
environment, we must continue to identify ways to improve our support 
to the warfighter. Working with our government and industry partners, I 
will work to ensure that strategic and in-theater logistics operations 
are synchronized. We will also focus on improving the visibility of 
assets and movements in order to better synchronize the arrival of 
units with equipment and supplies.
    Question. What steps, if any, do you plan to take, if confirmed, to 
address logistics supply challenges for ongoing operations in 
Afghanistan?
    Answer. If confirmed, I would continue to monitor the delivery to 
and sustainment of materiel in Afghanistan. My goal would be to 
continuously improve our logistical support to the warfighter.
    L&MR has integrated logistics experts into the requirements process 
to ensure that sustainment considerations and solutions are 
incorporated into rapidly fielded programs. Additionally we have 
focused on programs such as the MRAP vehicle. We conduct MRAP Deep 
Dives quarterly in order to focus on the readiness of this key 
warfighting capability and ensure that all logistical requirements are 
addressed.
    Question. What additional steps, if any, do you believe we can and 
should be taking to address the possibility that the southern supply 
route may become less available or more challenging in light of recent 
events in Pakistan?
    Answer. The Department continues to plan for contingencies that 
threaten any of our routes into and out of Afghanistan. We continue to 
look at ways to mitigate dependency on any one country's logistics 
support by expanding existing capabilities and developing new logistics 
routes. DOD has already increased the amount of cargo moving via the 
Northern Distribution Network and we continue to work to minimize the 
impact of any one route failure. We have also established viable multi-
modal and airlift only alternatives to ground movement that can work in 
both directions.

       PLANNING FOR CONTRACTOR SUPPORT IN CONTINGENCY OPERATIONS

    Question. GAO recently reviewed DOD's OPLANs and found that only 
four such plans include an approved Annex W addressing contract support 
requirements, contractor management plans, contract oversight 
processes, and manpower requirements to execute contractor oversight. 
Moreover, GAO found that the few annexes that do exist merely ``restate 
broad language from existing OCS guidance'' and fail to identify 
military capability shortfalls that will require contract solutions or 
ensure that combatant commanders are aware of even the general scope 
and scale of contract support that will be needed for an operation.
    Do you believe that the current level of military planning for 
contractor support in military operations is adequate and appropriate?
    Answer. This is a complex issue and may be different for every 
mission. We have learned a lot and continue to improve and evolve our 
strategy regarding the use and management of contractors. In terms of 
forecasting and planning for contracted support, the Department is 
integrating contractor support estimates into existing adaptive 
planning systems. If confirmed, I would work through the Defense 
Logistics Agency to resource joint OCS planners for each of the 
combatant commanders. These planners have the background experience and 
expertise to address the shortfalls noted by the GAO study. The 
Chairman of the Joint Chiefs of Staff issued guidance to include 
contractor deployment planning into Joint Operation Planning and 
Execution System (JOPES) and to ensure visibility of appropriate 
development of relevant Annex Ws. Additionally, the Department is 
ensuring that OCS requirements are considered in force planning 
scenario development and joint force assessments. To enhance these 
efforts, I would ensure that we continue to develop the automated tools 
to support Operational Contractor Support in adaptive planning under 
JOPES. We need the same level of fidelity in planning for OCS as we 
have for organic military forces.
    Question. What steps, if any, would you take, if confirmed, to 
improve military planning for contractor support in military 
operations?
    Answer. If confirmed, I would continue to work with and support the 
Chairman in the development of automated tools use to plan for 
contractors during military operations. The Chairman is currently 
working on the development of a tool that estimates contractor 
requirements at the operational level. We are simultaneously developing 
a complementary type of tool that will allow DOD leaders to have 
insight into global and strategic requirements that include that 
availability, readiness, and capabilities of contractors. Both of these 
automation tools will allow senior decisionmakers to quickly and 
accurately assess the impacts, risks, and mitigating strategies for 
proposed changes to forces, capabilities, assignments, apportionments, 
and allocations/options. I would also continue to adequately resource 
joint OCS planners currently supporting each of the combatant commands. 
In addition, DOD expects to provide over 50 planners to support the 
Military Services and Defense Agencies, resourced through the Defense 
Acquisition Workforce Initiative as provided by the fiscal years 2012 
to 2016 Resource Management Directive 700A2. In coordination with the 
Chairman and Military Services, if confirmed, I would maintain 
visibility and oversight of these planners to ensure that they continue 
to be relevant for contingency contractor planning.

                      PRIVATE SECURITY CONTRACTORS

    Question. Federal agencies, including DOD, have spent more than $5 
billion for private security contractors in Iraq and Afghanistan over 
the last decade. Over this period, there have been numerous reports of 
abuses by private security contractors, including allegations of 
contractors shooting recklessly at civilians as they have driven down 
the streets of Baghdad and other Iraqi cities. In September 2007, 
employees of Blackwater allegedly opened fire on Iraqis at Nisour 
Square in downtown Baghdad, killing more than a dozen Iraqis and 
wounding many more. More recently, the Senate Armed Services Committee 
reported on questionable activities by private security contractors in 
Afghanistan.
    What role do you expect to play, if confirmed, in addressing issues 
relating to the use of private security contractors in OCOs?
    Answer. The Office of the Assistant Secretary of Defense for 
Logistics, Materiel, and Readiness oversees the Operational Contractor 
Support capability along with the Director of Defense Procurement and 
Acquisition Policy. This is accomplished through the development of 
joint policies on requirements definitions, contingency program 
management, and contingency contracting and includes contracted 
security functions. If confirmed, I would expect that my role would be 
to ensure that this policy reflects the statutory requirements enacted 
by law and the values of DOD--consistent with other national and 
international laws and the enduring values of our Nation.
    Question. Do you believe DOD and other Federal agencies should rely 
upon contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. Without a substantial increase in the force structure 
committed to contingency operations, the use of contractors for some 
security functions in contingencies is a necessity. However, these 
security contractors must be properly regulated and supervised and 
their roles must be carefully limited and defined. Contractors cannot 
engage in combat operations. Their use of force is limited to self 
defense and the defense of others against criminal violence and the 
protection of critical property. Under these circumstances, I believe 
that the limited use of security contractors in contingency operations 
is acceptable. It would be inappropriate for me to comment on their use 
by other departments and agencies. If confirmed, I would ensure that 
proper limitations on private security contractors are reflected in DOD 
instructions, regulations, and the processes that implement those 
instructions.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq and Afghanistan?
    Answer. The use of force by contractors or military personnel can, 
if misapplied, undermine our policy objectives. Private security 
providers are a necessity in Iraq and Afghanistan and will likely 
continue to be so in future contingency operations. DOD has established 
policies and procedures to manage contractors effectively to prevent 
unnecessary violence that would be detrimental to our policy 
objectives. This is an area that requires constant attention and in 
which continued supervision and policy refinement are required.
    Question. What steps, if any, would you take, if confirmed, to 
ensure that any private security contractors who may continue to 
operate in an area of combat operations act in a responsible manner, 
consistent with U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would work to ensure that two actions are 
taken. First, policy for the management and oversight of private 
security contractors involved in military operations would be fully 
coordinated and understood across the Department and in the field. To 
this end I would work to ensure that DOD instructions remain current, 
clear, and aligned with combatant commander guidance and orders, and 
consistent with U.S. defense and foreign policy objectives.
    Second, there must be unified and consistent procedures for all 
private security contractors (PSC) that define the proper roles, 
limitations, and basic operating practices of PSCs among all U.S. 
Government agencies, coalition partners, and private sector customers 
of PSCs operating in contingency areas. If confirmed, I would continue 
to collaborate with the State Department and other governmental 
agencies to ensure consistent policy is developed and to promote a 
common international understanding of responsible use and oversight of 
private security services.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I support steps to ensure that there is legal 
accountability for the actions of all contractors supporting the U.S. 
Government in contingency operations. DOD has consistently supported 
unambiguous application of the Military Extraterritorial Jurisdiction 
Act to all DOD contractors and all U.S. Government private security 
contractors who are supporting the DOD mission in a contingency area. 
If confirmed, I would consult with DOD's interagency partners 
concerning appropriate mechanisms to ensure such accountability.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. I support the use of appropriate civilian and military 
legal processes to enforce accountability for the actions of all 
contractors deployed to an area of combat operations. I believe that in 
the absence of an effective civil legal system, the application of the 
Uniform Code of Military Justice is one tool that can be employed 
effectively to hold contractors accountable for their actions if it is 
authorized.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. There are certain situations where this may be the case, or 
be so close to inherently governmental as to blur the distinction. For 
this reason, current defense instructions require combatant commanders 
to carefully assess the likelihood of an activity becoming involved in 
combat before authorizing the use of private security contractors. This 
is particularly true for tasks involving access control to military 
installations and protecting military supplies.
    Whether military or civilian contractors, it is critical that we 
ensure that all security elements are properly trained to a common 
standard, regardless of who they work for. Further, it is essential 
that these contractors are effectively supervised, under the control of 
competent authority, and accountable for their actions. To this end, 
DOD is facilitating the development of the business and operational 
standards for private security companies described in section 835 of 
the National Defense Authorization Act of 2011. DOD is also working 
with the State Department to develop international norms for private 
security provider conduct and oversight. If confirmed, I would ensure 
that as these efforts mature, and they are incorporated into DOD policy 
and contracting procedures.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. The use, oversight, and management of private security 
contractors must be continually reviewed. The changing situation on the 
ground demands that we look to see if our policy remains relevant. 
International efforts, such as the Montreux Document, the International 
Code of Conduct for Private Security Service Providers, and the current 
effort to write business and operational standards for private security 
service, also require us to regularly review our policies. The 
implementation of these policies must be reviewed as well. If 
confirmed, I would continue to review these issues to determine whether 
there is a need to reevaluate these policies.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Logistics and Materiel Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                USE OF CONTRACTORS AT DEPLOYED LOCATIONS

    1. Senator McCain. Mr. Estevez, I note in your advance policy 
answers regarding the use of contractors in support of overseas 
contingency operations that this is a complex issue and may be 
different for every mission. In your opinion, can the combatant 
commanders feasibly plan and carry out operations without the use of 
contractors?
    Mr. Estevez. The Department of Defense (DOD) has, and continues to 
utilize contractors for operational support during contingency 
operations. While the extent of our use of contractors depends in part 
on the size, scope, and complexity of the mission, DOD expects that 
future operations will require the integration of substantial 
contractor support. The 2010 Quadrennial Defense Review acknowledged 
that contractors are part of the Total Force. The Department has issued 
strategic planning guidance that significantly increases the 
requirement to include contracted support during the operational 
planning process. As part of operational planning, combatant commanders 
must factor in contractor support as a component of the Total Force. 
Planning for contracted support is essential and is now the norm where 
it was not in previous operations.

    2. Senator McCain. Mr. Estevez, what impact does the reliance on 
military contractors have on the idea of combat force multiplication on 
the battlefield?
    Mr. Estevez. As a result of the report produced by the Chairman of 
the Joint Chiefs of Staff Task Force on Contractor Dependency (April 
2010), the Department is focused on operational contractor support and 
continues to assess implications with respect to force mix, contract 
support integration, planning, and resourcing. Contractors serve as 
force multipliers, performing non-inherently governmental functions 
while allowing military forces to focus on the operational mission.

    3. Senator McCain. Mr. Estevez, if confirmed, what would you do to 
reform contracting and oversight processes to ensure contingency 
contractors perform their tasks efficiently without waste of taxpayers' 
funds?
    Mr. Estevez. The Under Secretary of Defense (Acquisition, 
Technology, and Logistics) exercises management and oversight of 
contingency contracting through the Office of Defense Procurement and 
Acquisition Policy in conjunction with the Assistant Secretary of 
Defense (Logistics and Material Readiness) (ASD(L&MR)). Additionally, 
DOD has a functioning governance body which synchronizes the efforts of 
the Joint Staff, the Services, and other departmental staff agencies--
the Operational Contract Support Functional Capabilities Integration 
Board which is chaired by the Deputy Assistant Secretary of Defense for 
Program Support, a key leader on the ASD(L&MR) staff, and includes the 
Service Operational Contract Support Program Managers, the Joint Staff, 
OSD offices, and defense agencies. This entity ensures that processes 
and policy are in place to effectively oversee contracted support 
during contingency operations and is the primary body that addresses 
findings and recommendations from other organizations such as the 
Commission on Wartime Contracting and the Defense Science Board. 
Furthermore, the ASD(L&MR), in conjunction with the Joint Staff, the 
Services, and DOD staff agencies, continues to update policies and 
procedures to incorporate lessons learned along with emerging 
legislative requirements, while assessing planning capability 
requirements, and updating business systems, in order to improve 
processes related to contingency contracting and contractor oversight.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                             50/50 STATUTE

    4. Senator Chambliss. Mr. Estevez, the well-known 50/50 statute is 
codified in title 10, U.S.C. 2466, and states that ``Not more than 50 
percent of the funds made available in a fiscal year to a military 
department or a defense agency for depot-level maintenance and repair 
workload may be used to contract for the performance by non-Federal 
Government personnel of such workload for the military department or 
the defense agency. Any such funds that are not used for such a 
contract shall be used for the performance of depot-level maintenance 
and repair workload by employees of DOD.''
    The rationale for this statute as well as the companion core 
statute codified in title 10, U.S.C. 2464, is that the United States 
needs to ensure we have the organic capability and capacity to carry 
out critical depot maintenance activity, that the government's skills 
and capabilities in this area do not atrophy, and that we are always 
able to respond effectively and timely to a mobilization, national 
defense contingency, or other emergency requirement.
    What are your views of the core and 50/50 provisions and, if 
confirmed, will you be committed to retaining a robust organic 
capability and capacity for depot maintenance within DOD and the 
Military Services?
    Mr. Estevez. I believe robust, organic capabilities, shaped by core 
depot maintenance requirements, are essential in order to maintain the 
readiness of our force. The legislative framework provided by core and 
50/50 has served us well in the past and supports considerations we 
must address to ensure the continuation of appropriate organic depot 
maintenance capabilities and capacity. It is critical that we guarantee 
that a robust capability is available in the national industrial base, 
and as part of that, key capabilities must reside in the organic 
depots. Additionally, we must ensure that our commercial industrial 
base stays vital, and along with our organic base, is capable of 
surging to support our national security requirements. I am committed 
to the efficient utilization of both of these enablers and, indeed, to 
all aspects of logistical support throughout the industrial base.

    5. Senator Chambliss. Mr. Estevez, every area of the DOD budget is 
under scrutiny for savings and readiness, and logistics are no 
exception. What are your thoughts regarding how DOD and the Services 
might attain efficiencies and savings, specifically in the area of 
logistics, while still complying with the core and 50/50 provisions?
    Mr. Estevez. The tenets of core and 50/50 will serve as boundary 
conditions as we pursue efficiencies throughout the entire industrial 
base--both in the organic and commercial sectors. While doing so, we 
will actively monitor and assess the impacts of our initiatives on 
compliance with the provisions--and all initiatives will include, as a 
basic tenet, consideration of the health of both sectors. Our objective 
is to strengthen the depot maintenance industrial base by improving the 
efficiency of its operations, not to weaken it. This is true whether we 
are implementing initiatives that affect the organic sector, commercial 
sector, or both.

    6. Senator Chambliss. Mr. Estevez, is interservicing of workload a 
possible means of achieving savings and, if so, what are your views on 
interservicing of workload?
    Mr. Estevez. I believe that interservicing of workloads is one of 
many effective tools that may be used to achieve increased efficiency 
at DOD depots and DOD conducts substantive interservicing maintenance 
operations today. We need to give careful consideration to 
interservicing options during the ``source of repair decisionmaking 
process.'' Most notably, we must examine those decisions associated 
with new systems, where the establishment of a duplicate capability may 
be avoided, and where the Department can maximize on the use of 
existing capabilities. As DOD explores options related to 
interservicing of depot maintenance, we must fully consider 
responsiveness to our warfighters and maintain adequate robustness 
within our industrial base.
                                 ______
                                 
    [The nomination reference of Alan F. Estevez follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alan F. Estevez, of the District of Columbia, to be Assistant 
Secretary of Defense for Logistics and Materiel Readiness. (New 
Position)
                                 ______
                                 
    [The biographical sketch of Alan F. Estevez, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Alan F. Estevez
Education:
        <bullet> Rutgers University

                <bullet> September 1975-May 1979
                <bullet> Bachelor of Arts degree awarded May 1979

        <bullet> Industrial College of the Armed Forces

                <bullet> August 1994-June 1995
                <bullet> Master of National Security Resource Strategy 
                degree awarded June 1995
Employment Record:
    Principal Deputy Assistant Secretary of Defense (Logistics & 
Materiel Readiness), Department of Defense, Pentagon, Washington, DC, 
Nov. 2006-Present

        <bullet> Performing the Duties of the Assistant Secretary of 
        Defense (Logistics & Materiel Readiness), April 2009-Present

    Assistant Deputy Under Secretary of Defense (Supply Chain 
Integration), Department of Defense, Pentagon, Washington, DC, Oct. 
2002-Nov. 2006
    Acting Assistant Deputy Under Secretary of Defense (Transportation 
Policy), Department of Defense, Pentagon, Washington, DC, Sept. 2001-
Dec. 2001
    Deputy, Office of the Assistant Deputy Under Secretary of Defense 
(Transportation Policy), Department of Defense, Pentagon, Washington, 
DC, May 2000-Oct. 2002
    Assistant for Traffic Management, Office of the Assistant Deputy 
Under Secretary of Defense (Transportation Policy), Department of 
Defense, Pentagon, Washington, DC, Dec. 1995-May 2000
    Logistics Management Specialist, U.S. Army Strategic Logistics 
Agency, Alexandria, VA, May 1991-Dec. 1995
    Supervisory Traffic Management Specialist, Military Traffic 
Management Command, Falls Church, VA, Mar. 1989-May 1991
    Supervisory Traffic Management Specialist, Military Traffic 
Management Command, Western Area, Oakland, CA, July 1987-Mar. 1989
    Traffic Management Specialist, Military Traffic Management Command, 
Eastern Area, Bayonne, NJ, June 1981-July 1987
Honors and awards:
        <bullet> Presidential Rank Distinguished Executive Award (2011)
        <bullet> Presidential Rank Meritorious Executive Award (2006)
        <bullet> Secretary of Defense Medal for Meritorious Civilian 
        Service (two awards--2005, 2009)
        <bullet> Service to America Medal, National Security category 
        (2005)
        <bullet> Office of the Secretary of Defense Medal for 
        Exceptional Civilian Service, 2001
        <bullet> Office of the Secretary of Defense Award for 
        Excellence, 1997
        <bullet> Defense Logistics Agency Superior Civilian Service 
        Award, 1997
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, to complete a 
form that details the biographical, financial. and other 
information of the nominee. The form executed by Alan F. 
Estevez in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alan Fredric Estevez.

    2. Position to which nominated:
    Assistant Secretary of Defense (Logistics and Materiel Readiness).

    3. Date of nomination:
    April 6, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 20, 1957; Kearny, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Hideko Pearson (Ludrick).

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Industrial College of the Armed Forces/National Defense University, 
Masters of National Security Resources, 1994-1995
    Rutgers University, BA in Political Science, 1975-1979
    North Arlington High School, NJ, HS Degree, 1971-1975

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy assistant Secretary of Defense (Logistics & 
Materiel Readiness), Department of Defense, Pentagon, Washington, DC, 
Nov. 2006-Present

        <bullet> Performing the Duties of the Assistant Secretary of 
        Defense (Logistics & Materiel Readiness), April 2009-Present

    Assistant Deputy Under Secretary of Defense (Supply Chain 
Integration), Department of Defense, Pentagon, Washington, DC, Oct. 
2002-Nov. 2006
    Acting Assistant Deputy Under Secretary of Defense (Transportation 
Policy), Department of Defense, Pentagon, Washington, DC, Sept. 2001-
Dec. 2001
    Deputy, Office of the Assistant Deputy Under Secretary of Defense 
(Transportation Policy), Department of Defense, Pentagon, Washington, 
DC, May 2000-Oct. 2002
    Assistant for Traffic Management, Office of the Assistant Deputy 
Under Secretary of Defense (Transportation Policy), Department of 
Defense, Pentagon, Washington, DC, Dec. 1995-May 2000
    Logistics Management Specialist, U.S. Army Strategic Logistics 
Agency, Alexandria, VA, May 1991-Dec 1995
    Supervisory Traffic Management Specialist, Military Traffic 
Management Command, Falls Church, VA, Mar. 1989-May 1991
    Supervisory Traffic Management Specialist, Military Traffic 
Management Command, Western Area, Oakland, CA, July 1987-Mar. 1989
    Traffic Management Specialist, Military Traffic Management Command, 
Eastern Area, Bayonne, NJ, June 1981-July 1987

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    DOD Liaison to Board of Governors, Electronic Product Code Global 
(EPCGIobal), Global Standard 1 (GS1) (standard setting group), 2004-
Present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Board Member/Chapter Treasurer, National Defense Transportation 
Association, Washington, DC, Chapter, 1992-Present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, National Defense Industrial Association
    Member, Museum of Modern Art, NY
    Member, Defenders of Wildlife
    Member, Friends of the National Zoo
    Member, Corcoran Gallery
    Member, WETA
    Member, The Potomac Conservancy
    Member, Habitat For Humanity
    Member, National Parks Conservation Association
    Member, The Nature Conservancy
    Member, Rails to Trails
    Member, Chesapeake Bay Foundation
    Member, WAMU885
    Member, Philips Collection
    Member, Potomac Appalachian Trail Club
    Member, C&O Canal Trust

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Presidential Rank Distinguished Executive Award, 2011
    Presidential Rank Meritorious Executive Award, 2006
    Office of the Secretary of Defense Medal for Meritorious Civilian 
Service (two Awards--2005, 2009)
    Service to America Medal, National Security category, 2005
    Office of the Secretary of Defense Medal for Exceptional Civilian 
Service, 2001
    Office of the Secretary of Defense Award for Excellence, 1997
    Defense Logistics Agency Superior Civilian Service Award, 1997

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Estevez, A.F. and S. Geary (2006), ``RFID: The Future is Now,'' 
Exceptional Release Magazine, Summer 2006, pp 26-29.
    Estevez, Alan F., (2005), ``RFID Vision in the DOD Supply Chain,'' 
Army Logistician, May-June 2005, pp 5-9.
    Estevez, A.F. and S. Geary (2004), ``Lessons from the Desert,'' 
Supply Chain Management Review, November/December 2004, pp. 38-43.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I speak in my official capacity at conferences and luncheons about 
once a month on topics ranging from Radio Frequency Identification 
technology implementation to general Department of Defense logistics 
programs. However, these are not formal speeches.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Alan F. Estevez.
    This 13th day of April, 2011.

    [The nomination of Alan F. Estevez was reported to the 
Senate by Chairman Levin on August 2, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 2, 2011.]


 NOMINATIONS OF ADM JAMES A. WINNEFELD, JR., USN, FOR REAPPOINTMENT TO 
  THE GRADE OF ADMIRAL AND TO BE VICE CHAIRMAN OF THE JOINT CHIEFS OF 
 STAFF; GEN RAYMOND T. ODIERNO, USA, FOR REAPPOINTMENT TO THE GRADE OF 
GENERAL AND TO BE CHIEF OF STAFF, U.S. ARMY; AND GEN. WILLIAM M. FRASER 
    III, USAF, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE 
                 COMMANDER, U.S. TRANSPORTATION COMMAND

                              ----------                              


                        THURSDAY, JULY 21, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:41 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Udall, Hagan, Begich, Blumenthal, McCain, 
Sessions, Wicker, Brown, Ayotte, and Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Jessica L. Kingston, research assistant; Michael J. 
Kuiken, professional staff member; Peter K. Levine, general 
counsel; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; Paul 
C. Hutton IV, professional staff member; Daniel A. Lerner, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Michael J. Sistak, research assistant; Diana G. 
Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Margaret Goodlander 
and Christopher Griffin, assistants to Senator Lieberman; 
Carolyn Chuhta and Elyse Wasch, assistants to Senator Reed; 
Nick Ikeda, assistant to Senator Akaka; Ann Premer, assistant 
to Senator Nelson; Casey Howard, assistant to Senator Udall; 
Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Jordan Baugh, 
assistant to Senator Gillibrand; Ethan Saxon, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Clyde 
Taylor IV, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Charles Prosch, assistant to 
Senator Brown; Brad Bowman, assistant to Senator Ayotte; Ryan 
Kaldahl, assistant to Senator Collins; and Sergio Sarkany, 
assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the nominations of three 
outstanding military officers for positions of leadership and 
command, among the most important in the Department of Defense 
(DOD).
    Our witnesses today are Admiral Sandy Winnefeld, U.S. Navy, 
to be Vice Chairman of the Joint Chiefs of Staff (JCS); General 
Raymond Odierno, to be Chief of Staff of the U.S. Army; and 
General William Fraser III, USAF, to be Commander of the U.S. 
Transportation Command (TRANSCOM).
    We thank each of you for many decades of dedicated service 
to our Nation and your willingness to continue that service in 
these positions of great responsibility and challenge.
    Let me also extend on behalf of the committee our thanks to 
your families, whose support has been so important to the 
success that you have enjoyed, and whose support for you makes 
a difference for the Nation as well. As is a tradition that we 
particularly enjoy, we would invite each of you to introduce 
any family members or friends who may be here with you during 
your opening remarks.
    One of the first actions that all three of our nominees 
will carry out, if confirmed, will be immediately implementing 
the reduction of U.S. forces in Afghanistan by 10,000 by the 
end of this year, and removing the rest of 33,000 U.S. surge 
forces from Afghanistan by the end of the summer in 2012.
    These reductions are part of an ongoing process of 
transitioning, increasing responsibility for Afghanistan's 
security to the Afghanistan security forces, which by 2014 
would have leader responsibility for security throughout the 
country.
    The course which the President's decision sets provides a 
strategy for success in Afghanistan. The Afghan security forces 
have increased by almost 100,000 since the President announced 
the surge in December 2009, and that Afghan army will expand by 
another 70,000 security forces by the time all of the U.S. 
surge forces are brought home by September 2012.
    The growing capabilities of the Afghan security forces 
provide the Afghan people, but one Afghanistan elder in 
southern Afghanistan told me what they want the most, which is 
the ability to secure their own country themselves. Having 
Afghan forces in the lead puts to the lie to the Taliban's 
propaganda that international forces are there to occupy 
Afghanistan. The Afghans taking over their own security is the 
key to the strategy for success in Afghanistan.
    Admiral Sandy Winnefeld currently serves as the Commander 
of U.S. Northern Command (NORTHCOM) and is Commander of the 
North American Aerospace Defense Command (NORAD) with Canada. 
In this capacity, he has been responsible for defense of the 
Homeland, military support through civil authorities for 
domestic emergencies, as well as aerospace warning and control 
for North America.
    In his current capacity, he is the combatant commander 
responsible for the operation of the ground-based midcourse 
defense (GMD) system. If confirmed as Vice Chairman of the JCS, 
he would have a number of key roles and responsibilities 
related to missile defense.
    We would be interested in Admiral Winnefeld's views on 
whether he believes we should demonstrate correction of the two 
recent GMD flight test failures before resuming production or 
delivery of the kill vehicles for the GMD interceptors.
    The Vice Chairman of the JCS has a wide range of 
responsibilities, including playing a major role as Chairman of 
the Joint Requirements Oversight Council (JROC) in defining and 
improving requirements for future acquisition programs, and 
monitoring the progress of ongoing programs.
    As we all know, most of the major acquisition programs at 
DOD are over budget and behind schedule. The F-35 Joint Strike 
Fighter is one dramatic example. As the Defense budget is 
reduced, the inability of the Department to acquire, and its 
contractors to provide, needed systems on time and on budget 
becomes an even more significant problem than it is already.
    A significant challenge related to the Vice Chairman's 
acquisition responsibility is in the area of cyber security. 
All of the systems, equipment, support, intelligence, and 
almost everything else that DOD does relies on is on networks. 
Making sure that the networks can support the operations 
reliably will be a large part of Admiral Winnefeld's 
responsibilities.
    There also are issues, such as when does a cyber attack on 
United States' activities or entities require or justify a U.S. 
offensive reaction, cyber or other. The Vice Chairman will 
surely be involved in addressing that issue as well.
    If confirmed, Admiral Winnefeld would also serve as a 
member of the Nuclear Weapons Council. Producing and 
maintaining nuclear weapons is expensive and technically 
challenging. Today the Nuclear Weapons Council is participating 
in the design of the nuclear deterrent for the next generation. 
If confirmed, one of the challenges would be to keep both the 
costs and the scope of maintenance and modernization within 
reason.
    Of course, a central part of the Vice Chairman's role will 
be to act as chairman of the Joint Chiefs in the chairman's 
absence.
    General Odierno is well known to this committee. He has 
been before us several times as a commander of U.S. forces in 
Iraq, and more recently when nominated for his current position 
as Commander, U.S. Joint Forces Command.
    General Odierno will assume leadership of an Army that is 
battled tested and proven, but stretched by 10 years of war. 
The Army has met every challenge with the courage, dedication, 
and professionalism for which all of us are profoundly 
grateful.
    Over the next 4 years, under General Odierno's leadership, 
the Army will deal with many enduring and new challenges. First 
and foremost, the Army must continue to meet the demand for 
trained and ready forces in support of operations in 
Afghanistan and Iraq. As a commander with recent operational 
experience, we will be interested to hear General Odierno's 
views on the continuing demands for Army units in support of 
operations, their preparation, readiness, and performance, and 
how he would ensure that we continue to meet this challenge.
    The future beyond operations in Afghanistan and Iraq holds 
real questions about what we will need the Army to do, how it 
will be structured and equipped, and how we manage to keep a 
force that is as good and ready as it is today, modernizes to 
stay relevant for tomorrow, and that is at the same time 
affordable. We will be interested to hear General Odierno's 
views on how he will deal with the budget pressures that are 
already being felt throughout the Defense Department and that 
no doubt will result in funding challenges over the next 
several years.
    Perhaps the greatest leadership challenge that General 
Odierno will face is the 49,000 soldier end strength reduction 
planned for completion by 2017. The Army has reduced its size 
many times in its history, most recently at the end of the Cold 
War and Operation Desert Storm. The Army must plan and be able 
to manage its troop reductions and accompanying force structure 
changes to avoid hollowing out units and to remain as capable 
as it is today. We are interested to hear General Odierno's 
thoughts on end strength reduction, force structure changes, 
and how best to manage this change without losing the Army's 
hard won fighting edge.
    Finally, the Army must continue to work as hard as possible 
to deal with the human costs to soldiers and their families 
from the pressures and consequences of an army in continuous 
combat for 10 years. The Army has instituted significant 
programs to improve deployment predictability and reduce the 
stress of multiple rotations on soldiers and their families, 
improve care for our wounded soldiers and their families, and 
strive to deal with the heartbreaking incidence of suicides 
that continue in the Active-Duty Force, and have been 
increasing in our National Guard and Reserves. The committee 
will be interested to hear General Odierno's assessment and 
plans for the Army's efforts in those areas.
    General Fraser will also face critical challenges in his 
new position. The strategic mobility of our Armed Forces 
enables us to project power anywhere around the world. 
TRANSCOM, which encompasses the Air Force's Mobility Command, 
the Navy's Military Sealift Command, and the Army's Surface 
Deployment and Distribution Command, is the linchpin of that 
strategic mobility.
    General Fraser will also be dealing with the disparate 
components of the private transportation sector, including 
railroad, commercial air carriers, who participate in the Civil 
Reserve Air Fleet (CRAF) program, and commercial ship 
operators.
    One area where General Fraser will be immediately deluged 
is the growing challenge of logistical support for the 
Afghanistan theater of operations, concerns about over reliance 
on sometimes tenuous surface lines of communication through 
Pakistan, for logistic support into Afghanistan had led to over 
the past couple of years to the establishment of the Northern 
Distribution Network through Central Asia. However, these 
northern routes may need to be expanded to allow increased 
movement, both into and increasingly out of, Afghanistan if we 
are to maintain the quality and the timeliness of that support 
to our forces.
    We will be interested in General Fraser's views on that 
challenge.
    Again, gentlemen, our deepest thanks to you and to your 
families for all that you have done and will do for the Nation 
in the days ahead.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I welcome General 
Odierno, Admiral Winnefeld, General Fraser, and their families. 
A special thanks to their families, and I congratulate them on 
their nominations.
    I particularly want to recognize Mr. Tony Odierno, a 
distinguished wounded warrior and former soldier who is here 
today supporting his father.
    General Odierno, I strongly support your nomination to be 
the next Chief of Staff of the Army. Your critical role in 
Iraq, and I note that you are one of the very few officers to 
have commanded at the division, corps, and Army level during a 
single conflict, gives you a unique perspective on the 
capabilities of U.S. forces as you executed maneuver and 
counterinsurgency operations.
    Your service as Commander of the 4th Infantry Division, as 
Commander of Multi-National Force-Iraq, and U.S. Forces-Iraq, 
was instrumental in implementing the surge strategy and turning 
the tide of battle in Iraq.
    Your career of Army service and your various joint 
assignments, currently as Commander of U.S. Joint Forces 
Command, have provided you with an essential understanding of 
counterinsurgency operations, joint operations, and, most 
importantly, of soldiers and their families.
    We know that soldiers, Active Duty, reservists, and 
national guardsmen and their families have served gallantly and 
with a single-minded focus on victory under the most stressful 
conditions. As the Army has transformed itself into an 
expeditionary force while meeting the demands of two wars, we 
are enormously grateful for their service and sacrifices. The 
human costs of combat have been great.
    The comprehensive study completed last year under the Army 
Vice Chief's direction underline the effects of continuous 
combat rotations and the work that has to be done. But I 
applaud the efforts of senior military leaders in the Army and 
in DOD to understand these problems, provide the best medical 
care possible in responding to the needs of wounded soldiers, 
and to assist the families of all soldiers. If you are 
confirmed, there will be no higher priority than continuing 
this work.
    Winning the current fight in Afghanistan and preserving the 
hard-won gains in Iraq must continue to be the Army's top 
priority. In his few short months on the job, General Dempsey 
identified resolving the future mix of personnel and equipment 
as the Army's top priority. In this regard, you will be 
required to deliver honest assessments and make hard choices.
    As the Army decides upon the optimal number and type of 
vehicles and equipment and invests in recapitalization and 
modernization, I urge you to look carefully at recent history. 
Over the last decade, the Army embarked on a number of 
developmental procurement and modernization programs that were 
subsequently de-scoped, re-baselined, or cancelled outright. I 
am very interested in the specific steps you intend to take to 
improve the Army's procurement track record.
    The committee will be interested to know your views on the 
continued drawdown of our forces in Iraq, and under what 
conditions you would advise an enduring troop presence. I have 
expressed my concerns about the size and pace of the drawdown 
of troops in Afghanistan. I also want to hear your views about 
reducing Army manpower by 22,000 soldiers over the next 3 
years, and another 27,000 in future years, while absorbing a 
growing population of nondeployable soldiers.
    As you take the reins of Chief of Staff, we need to know 
how much risk the Army, and individual units and soldiers, are 
being required to absorb in this challenging environment.
    Admiral Winnefeld, congratulations on your nomination to be 
the next Vice Chief. I think you set a very high standard as 
Commander, NORTHCOM, improving our homeland defense 
capabilities and enhancing security in our southwestern border.
    There are still many challenges in this regard, and I hope 
that as Vice Chairman of the JCS, you will continue to 
participate in this important work.
    You are stepping into big shoes following General 
Cartwright. I thank him for his great service, and I hope he 
will continue to contribute his expertise to national security 
debates in the future.
    I urge you to focus immediately, upon confirmation, on 
improving the acquisition process. The Department and its 
industry partners have stumbled again and again in producing 
weapons systems at an affordable cost that, without question, 
the Services desperately need.
    Your involvement is also needed in furthering cyber defense 
strategy and nuclear strategy, in ensuring we achieve success 
in the Middle East and Libya, and in ensuring that the demand 
for budgetary reductions does not result in loss of 
capabilities and a military diminished and unable to respond in 
defense of our vital national interests.
    General Fraser, you are following in the steps of two 
outstanding leaders at TRANSCOM, General McNabb and General 
Schwartz. I am sure you will receive excellent mentoring and 
advice from them.
    Last year, DOD released the Mobility Capabilities and 
Requirements Study-2016 (MCRS-16), that found the Department's 
planned mobility capabilities are sufficient to support the 
most demanding projected requirements. Specifically, the study 
found that large cargo aircraft airlift capacity exceeds the 
peak demand in all the peacetime and wartime scenarios 
considered, which covered a broad spectrum of military 
operations.
    The study concluded that the military needs only 264 to 300 
large cargo aircraft. Eliminating the 316 large cargo aircraft 
for restriction  would  allow  the  Air  Force  to  retire  an  
additional  15 C-5A aircraft, and provide substantial savings 
by freeing up billions in taxpayers' dollars over the next few 
years. Given the current climate of fiscal austerity, which 
requires we look to all corners of the defense enterprise to 
determine how DOD can conduct itself more efficiently, this is 
a move in the right direction.
    I thank our witnesses again for their service and their 
willingness to serve in these key positions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Let me now call first on Admiral Winnefeld.

      STATEMENT OF ADM JAMES A. WINNEFELD, JR., USN, FOR 
 REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE VICE CHAIRMAN 
                  OF THE JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Chairman Levin, Senator McCain, and 
distinguished members of the Senate Armed Services Committee, I 
am very honored to appear before you today as the President's 
nominee to become the Vice Chairman of the JCS.
    This nomination is especially humbling to me when I 
consider the eight exceptional officers who have previously 
held this position. I am very energized by the opportunity to 
continue serving alongside America's young men and women in 
uniform.
    It is also an honor to appear alongside two very special 
colleagues in Ray Odierno and General Will Fraser, with whom I 
have been so privileged to serve in the past, and whom I hold 
in such high regard. If we are confirmed, I look forward very 
much to the opportunity to continue working closely with them 
in the future.
    It goes without saying that we as a Nation face many 
serious near-term and long-term challenges, and that many of 
them fall inside the military's lane. If confirmed, I will do 
my part, do my best to ensure that our many ongoing operations 
around the world are concluded successfully, to assist the 
Secretary of Defense and the Chairman in crafting a way ahead 
for the Department to include operating in a challenging budget 
environment, the continued improvements in the requirements and 
acquisitions process that Senator McCain referred, and also to 
maintain the best possible stewardship of the young men and 
women that have been entrusted to our care.
    As such, I look forward to working with not only the senior 
leadership in DOD in Washington, but also with our combatant 
commanders and our friends and allies around the world, and 
also key members of the executive branch and Congress to 
include the members of this committee to do our best to make 
sure that we're defending the American people.
    If I am confirmed, I will be joined in Washington by my 
family, who unfortunately could not be here today. But I want 
to mention my incredible wife, Mary, who is so supportive of 
military families, and my two sons, L.J. and Jonathan, who I 
love dearly and I am very proud of.
    My parents were also unable to be here today, but I will 
forever be indebted to them for their love and support, and 
also for their service together with a 30-year Navy career.
    Thank you again very much for the opportunity to appear 
before you. Thank you for the ongoing support that you on this 
committee and your hardworking staff continue to provide to our 
men and women serving in uniform.
    I look forward to your questions. Thank you, sir.
    Chairman Levin. Thank you so much, Admiral.
    General Odierno.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, FOR REAPPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF, U.S. ARMY

    General Odierno. Chairman Levin, Senator McCain, other 
distinguished members of the Senate Armed Services Committee, 
thank you for allowing me to have the opportunity to appear 
before you today.
    Before I get started, I would like to introduce my family. 
I would first like to start out with my wife, Linda, who has 
been by my side for my entire 35-year career. She has dedicated 
herself to soldiers and family, leading family readiness groups 
at company, battalion, brigade, division, and corps levels, 
volunteering and leading to ensure our soldiers and their 
families are taken care of. But most importantly, I believe she 
served as a role model for all the young spouses throughout the 
military.
    Over the last 3 years, she has dedicated herself to 
championing and providing pet therapy to our wounded soldiers 
and taking this on as a great opportunity to help to continue 
to move forward with their lives. She has done all this while 
being the mother of three children and three grandchildren. I 
could not do it without her. She has been by my side the whole 
time, and she is, frankly, my personal hero and my partner.
    I am also blessed to have three wonderful children who are 
all here today. First, my youngest son, Michael, who is a 
senior at Texas Tech University, and who has probably had to 
live with more deployments than any other child in recent 
years, and has done so well in helping my wife as they have 
worked through these together.
    My daughter, Katie, and her wonderful husband, Nick, who 
are here today, they are from Baltimore. Katie is a mother and 
also works in interior architecture. They live in Baltimore, 
and they are so supportive of me.
    Finally, my oldest son, Tony, who many of you know, West 
Point graduate, served in Iraq, was injured in 2004. He has set 
such an excellent example for all of us through his 
perseverance and dedication. Today, Tony is married to 
Danielle. Unfortunately, she could not be here today. She is 
watching their twin boys and could not make it out today. He 
works for the Yankees, but he continues to----
    Senator Lieberman. You were doing so well until then. 
[Laughter.]
    General Odierno. But he continues to dedicate himself to 
wounded warriors as he is on the board of directors of the 
Wounded Warrior Project. It is an honor for me to have them 
here as they continue to serve me and our country.
    Mr. Chairman, if I could go on, over the last 10 years, our 
Army has proven itself in arguably the most difficult 
environment this Nation has ever faced. Our leaders at every 
level have displayed unparalleled ingenuity, flexibility, and 
adaptability. Our soldiers have displayed mental and physical 
toughness and courage under fire. They have transformed the 
Army into the most versatile, agile, rapidly deployable, and 
sustainable strategic land force in the world today.
    I am proud to be part of this Army with the opportunity to 
serve with these great men and women. I am humbled and honored 
that I have been nominated to be the 38th Chief of Staff for 
the Army.
    But today is like no other in our history. It is a time of 
uncertainty and historic change. We face a multitude of 
security challenges, such as transnational and regional 
terrorism in places like Yemen, Somalia, North Africa, and 
Pakistan's Federally Administered Tribal Areas. We have 
uncertainty surrounding the Arab spring, and the proliferation 
of nuclear weapons. We face the challenges of rising powers. 
But most importantly, all of this is underpinned by our own 
fiscal crisis.
    I know that if confirmed, we will face some very difficult 
resource decisions within DOD. As we determine those essential 
characteristics and capabilities which we will need on our 
Joint Force to meet our future security challenges, I pledge 
that I will work with everyone to make sure we come up with the 
right answer and mitigate the risks associated with such.
    But I do have a word of caution. We must avoid our 
historical pattern of drawing down too fast and getting too 
small, especially since our record of predicting the future has 
not been very good. As you make difficult resource decisions, 
you must be thoughtful in understanding the risks we incur to 
our Nation's future security.
    Today, the Army must continue to provide trained and ready 
forces to ensure we prevail in our current missions in Iraq and 
Afghanistan. In the future, we must ensure that our Army 
remains our national force of decisive action, a highly 
relevant and effective force across the spectrum of conflict.
    In order to do this, we must sustain our own volunteer Army 
today and in the future, providing depth and versatility to the 
Joint Force, an army that is more efficient in its deployment, 
provides greater flexibility for national security 
decisionmakers, and defense of our interests at home and 
abroad.
    Finally, and most importantly, if confirmed, it is my moral 
responsibility as Chief of Staff of the Army to be the number 
one advocate for our soldiers and their families. It is their 
dedication and sacrifice that has earned the respect and 
confidence of the American people as they continue to put their 
lives in harm's way for our Nation's security.
    I want to close by stating my appreciation to the 
committee, its unwavering support of our soldiers and their 
families throughout the last several years. We could not do it 
without that great cooperation.
    I promise you that if confirmed, I will dedicate myself to 
carrying out my duties to the best of my ability and continue 
to work openly with Congress to support our warfighters.
    I look forward to answering your questions. Thank you, Mr. 
Chairman.
    Chairman Levin. General, thank you so much.
    General Fraser.

      STATEMENT OF GEN. WILLIAM M. FRASER III, USAF, FOR 
REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Fraser. Senator Levin, Ranking Member McCain, 
distinguished members of this committee, I am indeed honored to 
appear before you today as the President's nominee to be the 
Commander of TRANSCOM.
    It is also a privilege to join two fine officers on this 
panel, Admiral Sandy Winnefeld and General Ray Odierno, with 
whom I have worked closely not only in my current command, but 
in previous assignments. It is an honor and a privilege to join 
them today.
    This morning I am joined, as I have been throughout my 37-
year military career, by my wife, Bev, with whom I have been 
blessed to share this extraordinary experience of serving in 
the Armed Forces of this great Nation. Bev and I are indeed 
humbled to serve with the terrific men and women who have 
volunteered to serve our Nation, and we are grateful for this 
opportunity to continue serving, if confirmed, in this new 
capacity.
    As you all well know, the military is truly a family, and 
Bev and I are extremely proud that our family has been a part 
of it. Our son, Mack, served in the U.S. Marine Corps. Our 
daughter, Ashley, is a military spouse of an Air Force officer. 
They have blessed us with six grandchildren.
    Throughout my career, I have become increasingly 
appreciative of the team effort required of all military 
families. All families of our soldiers, sailors, airmen, 
marines, and Coast Guards members, they help us perform our 
mission on a day-to-day basis and make many sacrifices.
    The families of our servicemembers that make these 
tremendous sacrifices are doing it for their husbands, their 
wives, their fathers, their mothers, their sons, and their 
daughters to answer our Nation's call. I thank them for their 
priceless contribution to our freedom.
    If confirmed, I look forward to joining the TRANSCOM 
family, the more than 145,000 men and women who are dedicated 
to delivering, sustaining, and then returning our forces.
    In my current role as Commander, Air Combat Command, I know 
the critical importance of rapid, efficient, and timely global 
logistics. I also understand at the heart of that capability is 
the innovation and creativity of thousands of men and women who 
really make it happen.
    If confirmed, I pledge to enable our total force--soldiers, 
sailors, airmen, marines, and coastguardmen, and civilian team 
members--to build on the superior legacy of my friend and 
colleague, General Duncan McNabb. He has chartered a vision 
based on making our forces more effective and more efficient 
through rapid and responsive global logistical solutions and 
interagency, non-governmental, commercial, and international 
partnerships. We will always deliver.
    Finally, if confirmed, I look forward to working with this 
committee and all Members of Congress to ensure that TRANSCOM 
can continue to provide world class support through all of our 
incredible men and women.
    Once again, I am humbled to have been nominated by the 
President for this position. I appreciate the trust and 
confidence of the Secretary of Defense and the Chairman of the 
Joint Chiefs in considering me for this command. I am grateful 
for the opportunity to appear before you today.
    I look forward to your questions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, General.
    Let me ask you the standard questions. You can all answer 
together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interests?
    [All three witnesses answered in the affirmative.]
    Do you agree when asked to give your personal views, even 
if those views differ from the administration in power?
    [All three witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All three witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All three witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All three witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All three witnesses answered in the affirmative.]
    Do you agree if confirmed to appear and testify upon 
request before this committee?
    [All three witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or to consult with 
the committee regarding the basis for any good faith delay or 
denial in providing such documents?
    [All three witnesses answered in the affirmative.]
    Thank you all.
    Let us have an 8-minute first round of questions today.
    On June 22, President Obama announced his decision that the 
United States would draw down its forces in Afghanistan by 
10,000 by the end of this year, and the remaining 23,000 U.S. 
surge forces by the end of the summer 2012, for a total of 
33,000.
    Let me ask each of you, and start with you, Admiral. Are 
you comfortable with the President's decision relative to those 
reductions?
    Admiral Winnefeld. Yes, sir, I am.
    Chairman Levin. General Odierno?
    General Odierno. Yes, sir.
    Chairman Levin. General Fraser?
    General Fraser. Yes, sir, I am.
    Chairman Levin. General Odierno, the now former Secretary 
of Defense, Secretary Gates, made a speech at West Point last 
February saying that the Army is going to be increasingly 
challenged to justify the number, size, and cost of its heavy 
formations. The Army's first major challenge will be how to 
structure itself, how to train-and-equip for the 
extraordinarily diverse range of missions that it's going to 
face in the future.
    Now, there were a number of other assertions by Secretary 
Gates, and I think you are familiar with them. But basically, 
how would you react to his statement that the Army is going to 
have difficulty justifying size, structure, and cost to the 
leadership of Congress and to the country?
    General Odierno. Thank you very much, Mr. Chairman. I have 
actually had several conversations with Secretary Gates about 
this. What I believe he was doing was challenging all of us as 
leaders to make sure that we are looking ahead, that we 
understand the future of conflict by being informed by the 
past, and the lessons we have learned in conflict. Because of 
that, we must make sure we shape our Army for the future to 
meet what we believe will be our future requirements. It is 
about identifying the right capabilities and characteristics 
that we need.
    I think what we have to do is become agile. We have to 
become more adaptable. We have to be able to respond to a wide 
variety of potential capabilities that national command 
authority will need the Army to do. He is challenging us to 
make sure we do that as we conduct our assessments. I am 
confident that the Army, as we are looking both at today and 
into the future, are conducting detailed assessments to decide 
what we should look like as we move forward. I will report this 
out as we review and make progress in this effort.
    Chairman Levin. Thank you.
    Let me ask you, Admiral, a couple of questions about 
Afghanistan and Pakistan as you undertake these major 
responsibilities. How important is it, in your judgment, to the 
success of our counterinsurgency campaign in Afghanistan that 
we maintain the process of transitioning more and more 
responsibility to the Afghan security forces for their 
country's security?
    Admiral Winnefeld. I think it is fundamental to the entire 
campaign that we transition responsibility for security to the 
Afghan National Security Forces. The ultimate goal in 
Afghanistan is establishing adequate stability so that al Qaeda 
and other extremist groups cannot return there and have a 
position from which to attack this country. Ultimately, the 
Afghans are going to have to step up and take that kind of 
responsibility for themselves. I think it is fundamental to the 
campaign.
    Chairman Levin. One of the challenges to that campaign is 
the Pakistanis' remaining reluctance to take on the Haqqani 
network. Do you have an assessment as to why they are refusing 
to take them on?
    Admiral Winnefeld. Of course, Pakistan is a very difficult 
partner, and we all know that. We do not always share the same 
world view or the same opinions or the same national interests. 
I believe it is very unfortunate that Pakistan years ago made a 
decision to go down a very risky road of using proxy groups to 
carry out some of its desires to protect what it views as its 
own national interests. Among those groups has been the Haqqani 
network.
    I think we need to keep continued pressure on Pakistan 
using all elements of pressure that we are able to apply to 
what really should be a friend, to get them to realize that the 
Haqqani network poses a threat to their own country, and to 
take the steps that we have asked to take and that they need to 
take in order to eliminate that as a threat, not only inside 
Pakistan, but equally importantly for us in Afghanistan.
    Chairman Levin. Relative to Pakistan, we have a real 
problem of resupplying our forces in Afghanistan, particularly 
as the Pakistan lines of communication are degraded or 
threatened or interrupted.
    When we met earlier, General Fraser, you indicated that we 
might have to rely more heavily on sealift with intra-theater 
airlift as the last leg of support for Afghanistan operations. 
Can you tell us about that, and what would be the problems 
associated with relying more heavily on that combination of 
sealift and intra-theater airlift if we have to resort to that?
    General Fraser. One of the things that in preparation for 
this hearing I have taken a hard look at is the expansion that 
we have had through the Northern Distribution Network. We have 
made progress there. If confirmed, I will continue to work that 
very aggressively to expand the opportunities there as an 
alternative mode for getting goods into the theater.
    We understand the challenges that may be presented with 
Pakistan if it was to shut down, and, therefore, that is why we 
are working hard to expand the network through the use of 
inter-theater lift, but once getting the supplies through the 
ports. Working with the countries in the Persian Gulf to have 
access to ports will allow us in to bring goods into the ports 
and then move them on from there with intra-theater lift.
    If it shuts down, I am confident that we will be able to 
satisfy the requirements in the theater.
    Chairman Levin. Thank you.
    General Odierno, what is the operational urgency to field a 
new ground combat vehicle (GCV) in 7 years? How do you propose 
to manage the program risk which is associated with that kind 
of a fairly aggressive schedule through technology development 
or otherwise?
    General Odierno. Thank you very much.
    The Army for almost 10 years now has been on a path of a 
developing capability for light forces, medium force with the 
Stryker, and sustain our heavy forces with the Abrams battle 
tank and the Bradley fighting vehicle. There was a plan at one 
time for us in the future--2020, 2025--to convert all that to 
the Future Combat System (FCS).
    We all know that the FCS program specifically was not 
successful. So, we have to constantly look at what is going to 
be the vehicle that the Army uses as we bring our force 
together for the future?
    One of the potential vehicles is the GCV. What we have to 
do is continue to assess, look at the requirements that we have 
established for the GCV to see if it will meet the future 
requirements that we see for our Army in the future.
    We are constantly assessing and working that, and we will 
continue to work with the committee on that.
    Chairman Levin. Okay. Thank you all.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Fraser, to follow up on Chairman Levin's question 
about what would happen if Pakistan cut off its supply routes, 
what percent of our logistics now goes through Pakistan?
    General Fraser. Sir, it is my understanding that 
approximately 35 percent moves through the ground, and the 
other is moving through the Northern Distribution Network, 
coupled with the lift as we bring in supplies by air.
    Senator McCain. How long would it take you to make up for 
that 35 percent? Suppose tomorrow Pakistan shut off those 
supply routes. How long would it take you to adjust to keep the 
same level of logistics into Afghanistan?
    General Fraser. If confirmed, I will certainly delve deeply 
into that.
    Senator McCain. You do not know.
    General Fraser. I have not gotten the details of that.
    Senator McCain. It cannot be right away, you know that much 
about it.
    General Fraser. Yes, sir.
    Senator McCain. So, there would be a period of time where 
we would not have the normal logistic supply.
    General Fraser. Sir, in my visits to the theater, I see 
the----
    Senator McCain. Is that true or false?
    General Fraser. I'm sorry, sir?
    Senator McCain. True or false. It would be a period where 
we would not be able to maintain the same level of supply.
    General Fraser. That is true, sir.
    Senator McCain. If we have to use airlift, airlift is 
approximately four or five times as expensive as the present 
mode of ground transportation, right?
    General Fraser. Sir, we are doing everything we can to 
reduce the costs through the multi----
    Senator McCain. Is it true that it is three or four or five 
times more expensive to use air to carry these logistics than 
the present mode of overland?
    General Fraser. Sir, I will delve deeply into those cost 
figures. I do not have them off of the top of my head. It is 
more expensive to go by air.
    Senator McCain. Thank you.
    Admiral Winnefeld, how big of a threat do the drug cartels 
in Mexico pose to the very government and country of Mexico?
    Admiral Winnefeld. I do not think they pose an existential 
threat to the central Government of Mexico, but it is very 
clear that in particular regions of Mexico, that they have 
coopted elements of the government, and that the Mexican 
Government is facing a very serious challenge in those areas. 
But in terms of the viability of the democracy of the central 
Government of Mexico, I am not overly concerned about that.
    Senator McCain. Do you believe that there's any law 
enforcement institution in Mexico that is untainted by 
corruption?
    Admiral Winnefeld. I think that the higher you go in the 
Mexican law enforcement realm, the less tainted they are. I 
have more confidence certainly in the Secretaria de Seguridad 
Publica (SSP), which is the federal police. They have made 
tremendous strides. They are working very hard. As you get down 
closer to the municipal level, there is a great deal of 
corruption, yes, sir.
    Senator McCain. Do you agree with the Government 
Accountability Office assessment that our border is about 44 
percent ``operationally secure''?
    Admiral Winnefeld. I do not have any facts that would 
dispute that conclusion.
    Senator McCain. Is it your view that there are some parts 
of our border that are still not operationally secure?
    Admiral Winnefeld. In terms of operationally secure, 
meaning being able to completely shut off the flow of illegal 
immigration, I would agree with you.
    Senator McCain. Maybe not completely, but operational 
control, I think you and I both share the same definition.
    Admiral Winnefeld. Yes, sir.
    Senator McCain. There are parts of our border that you 
agree are not operationally secure?
    Admiral Winnefeld. I would say that there are definitely 
parts that are very challenged in terms of their operational 
security. But I would hasten to add that there has been a lot 
of progress made over the last few years. I would defer to the 
Secretary of the Department of Homeland Security to give you 
the real details on that.
    Senator McCain. General Odierno, today there is a report 
that a senior broad-base analyst says that al Qaeda is 
expanding in Yemen and Somalia, posing a new threat to U.S. 
military planning. The tactic could be part of the outfit's 
strategy of energizing its franchise with an objective of 
widening the areas of conflict, and hitting at its enemy, the 
United States, in places where such attacks are the least 
expected. Do you agree with that assessment, particularly in 
regards to Yemen and Somalia?
    General Odierno. I think for years we have been tracking 
the fact that al Qaeda has been trying to establish significant 
capability in Yemen. They are, I believe, starting to join 
other terrorist elements within Somalia, building a 
relationship with them in order for them to expand their 
organization as we continue to challenge them in other places.
    Senator McCain. In your view and most experts say that it 
is a growing threat, both Somalia and Yemen, particularly given 
the unrest in both those countries.
    General Odierno. It is a very big concern, Senator.
    Senator McCain. Should we not take that into consideration 
as we talk about massive cuts in defense?
    General Odierno. As I said in my opening statement, 
Senator, I believe the transnational and regional terrorist 
threat is a huge issue for us as we look forward. We have to 
consider that as we move forward with any reductions and what 
our policies and strategies are to go after these threats.
    Senator McCain. Let me ask you about a continuing presence 
in Iraq. You obviously have been disturbed by hearing about the 
published reports of increased weapons from Iran coming into 
Iraq, and Afghanistan as well, increased Iranian influence in 
southern Iraq. How important do you think it would be for us to 
maintain, with the agreement of the Iraqi Government, a troop 
presence, say, of about 10,000 people in Iraq, air defense, the 
Tikrit, the areas under dispute on the Kurdish border, and also 
for air defenses?
    General Odierno. I think that if the Government of Iraq 
were to request, as you said, I think it is important that we 
provide them with the support they think is necessary. It is 
clear that Iran is attempting to influence this decision with 
the actions they have taken, specifically over the last several 
months, in continuing to support, fund, train, and equip 
surrogates in southern Iraq and central Iraq, specifically 
going after the remnants of our U.S. presence inside of Iraq.
    It is important that we continue to support Iraq for their 
external security, both for air sovereignty, and also to help 
them in some of their security challenges, to include 
potentially some of the Kurdish areas. Those will be decisions 
that will be made by General Austin, the Ambassador, and 
General Mattis as they move forward.
    Senator McCain. You do agree that there is clear evidence 
of increased Iranian activity in Iraq in a broad variety of 
areas, including the supply of weapons?
    General Odierno. Absolutely, Senator.
    Senator McCain. Which makes one wonder if the Iranians 
believe that we are totally evacuating the area.
    Let me just mention again, you and I have talked about it a 
lot, but there are those of us who are deeply concerned about 
continued cuts in defense. I would like to have your views of 
the effects of significant cuts in defense, particularly in 
personnel areas.
    Again, a group chartered by the Secretary of the Army to 
look into how the Army procures major weapons systems found 
that every year since 1996, the Army has spent more than $1 
billion annually on programs that were ultimately cancelled. 
Since 2004, $3.3 billion to $3.8 billion per year of Army 
developmental testing and evaluation funding has been lost due 
to cancelled programs, including the now cancelled FCS program. 
It goes on and on. You are very aware of it.
    Does that not have to be one of your highest priorities of 
trying to get this procurement situation under control? Would 
it not be helpful if we gave legislative authority to the 
Service Chiefs to be more involved in the whole acquisition 
process?
    General Odierno. First off, I will work very closely with 
the Secretary of the Army on these issues. We have identified 
several issues. First, it takes us too long to develop 
programs, and as the length of time increases, we change the 
requirements, so it becomes more expensive. We have not been 
good at predicting the technologies that are available. We have 
to work at all this so we are not wasting money, and we are 
putting money in places that will be essential to us in meeting 
the future.
    I will have to think about the legislation about giving the 
Chiefs more authority, and I will certainly get back to you, 
Senator, on that.
    [The information referred to follows:]

    I believe the authorities vested in the position of the Chief of 
Staff under title 10 sufficiently establish roles and responsibilities 
within the acquisition process. I pledge to work diligently with the 
Secretary of the Army and the Army leadership, along with the Office of 
the Secretary of Defense and Congress, to ensure a unified effort 
centered on effectiveness and efficiency that meets the capability 
needs of our force.

    Senator McCain. On the whole issue of defense cuts and its 
effect on personnel, I would like your comments.
    General Odierno. First off, in the Army, the Army is about 
soldiers. When we talk about defense cuts, you are talking 
about structure. You are talking about end strength of the 
Army, 42 percent of the budget is personnel costs in the Army 
budget. As we look at reductions, it will be about structure 
and personnel.
    It is important for us that we understand that as we go 
forward we are in a supply and demand business. It will depend 
on what the demand is for the use of our soldiers so we can 
continue to sustain our All-Volunteer Force, and we are able to 
continue to meet the commitments around the world. That must 
all be considered as we look at the characteristics and 
capabilities you want the future force to look at it, because 
the Army will pay a force structure because that is what we 
are, and that is what we provide to the joint force.
    Senator McCain. All right, thank you. Thank you, Mr. 
Chairman, and I thank all the witnesses for their service. I 
would just like to add, again, I have had the honor of watching 
General Odierno lead the brave men and women under his command 
in Iraq, and there is no one that I think is a finer leader 
that I have encountered in the team of Odierno, Petraeus, and 
Crocker, as instrumental in our success in implementing the 
surge in Iraq.
    I thank you, Mr. Chairman, and thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and, gentlemen, 
thank you for your service to the country, and to the families 
that have supported you, thank you very much.
    Admiral Winnefeld, one of your principle responsibilities 
will be in the requirements process, and ultimately that 
transitions into procurement. The former Secretary of the Navy, 
Gordon England, who I greatly admire and has great insights, 
suggested a procurement holiday, if you will, as we face a 
great deal of uncertainty in terms of what systems are going 
forward and how much money you will have.
    In the context of that proposal, how do you propose to get 
your hands around the reset that is necessary, the new 
innovative technologies that have to be incorporated, and a 
budget that is going to be extremely challenging, more so I 
think than I believe today.
    Admiral Winnefeld. Sir, I do not have the details of the 
proposal that you referred to regarding a procurement holiday. 
I think that would probably be unwise. We have future 
challenges in the world we need to continue to address and 
prepare ourselves for as a military, even as we resolve the 
conflicts that we have going on today.
    I think this is a big ship in terms of the acquisition 
programs and the processes and the embedded requirements 
process, that we need to turn into a much more favorable 
direction for the taxpayers. I will be the first one to agree 
with that.
    I think that we have a confluence of tools that are going 
to work for us. I think beginning with the Weapon System 
Acquisition Reform Act, which I think is good legislation, but 
it is going to take time for that to have its effect. I believe 
that Under Secretary Carter has a very good approach in better 
buying power that he is imposing on the Department to get more 
cost efficiencies, to provide incentives for industry, to 
provide more for competition and the like. Then I think that 
General Cartwright, if I am confirmed, has set me up for 
success to further improve the requirements process.
    I think those three things working together are going to 
get this ship turned in the right direction. We are going to be 
doing that, as you point out, sir, inside a very challenging 
budget environment.
    Senator Reed. Again, I do not want to presume to argue 
Secretary England's case, but what it suggested to me is at 
least the possibility of stepping back, and instead of 
continuing to procure what is in the pipeline of looking out 
strategically to what we might really want 10 years from now or 
15 years from now.
    Again, we have had the discussion with all three gentlemen 
privately that in times like this, we would like to think 
strategy drives the budget, the decisions, but most times it is 
the budget that drives things. Given this tight budget, this 
notion of looking ahead and maybe not simply doing what we're 
doing today, but a little less and a little less and a little 
less might be the appropriate approach. I do not know if you 
would consider that.
    Admiral Winnefeld. I think that the old adage, if you keep 
on doing the same thing you have been doing that is the 
definition of insanity, right? I think that we are going to 
have to take a very close look, especially in a very difficult 
budget environment. There are probably some of these programs, 
depending on the pressures, depending on the decisions that are 
made by the senior leadership of the Department based on 
ongoing comprehensive review, that may end up falling by the 
wayside.
    But I hope that those decisions can be made with a strategy 
in mind. That strategy, of course, lives in an environment with 
a changing world, with threats that are out in the world, but 
also budget realities that we have to live with. We have to get 
the balance just right.
    Senator Reed. Let me switch to General Odierno. First, 
again, I join my colleagues in commending all of you, but I 
have had the privilege to work with General Odierno for many 
years now. I personally commend him for his incredible service 
to the Nation, to the Army, and, most importantly, the troops 
he leads. Thank you, sir.
    One of the challenges you had, you talked about end 
strength. You talked about budgets. But one of the challenges 
you have is, how do you continue to maintain, develop, the 
talent, the enthusiasm, the energy of the superb officers and 
noncommissioned officers (NCO) that are the heart and soul of 
what you do, not the equipment, not the force structure, at a 
time they have been in combat, many of them, their entire 
careers, which no generation of American soldiers has ever 
experienced.
    That creates psychological pressures. It creates family 
pressures. It creates real, profound questioning within the 
profession. I think the profession is where these questions 
have to be addressed initially before they come to us about 
what do we do? What changes do we make?
    I know you have thought about this, but your comments today 
would be appreciated.
    General Odierno. Thank you, Senator Reed. I think one of my 
number one priorities is to first view leader development and 
how we are going to do leader development.
    One of the things we have learned over the last 10 years is 
the requirement that we have on our leaders has changed 
significantly and grown frankly--what we expect them to be able 
to do, how we expect them to adapt, how we expect them to be 
agile. We now have to infuse in our leader development program, 
how do we develop this from the time they start at Reserve 
Officers' Training Corps (ROTC) or West Point to their time as 
they develop as young officers to senior officers, and as well 
as NCOs.
    We have to dedicate ourselves to look at new ways, broaden 
their horizons so they are able to better react and better be 
prepared for the world situations that they will be placed.
    Second, we have to understand that we have a force that is 
very different now. We have majors and captains today that all 
they have experienced is war. We have to help and understand 
and make sure they understand the profession of arms and 
reinvigorate our thoughts on the profession of arms, and 
reinvigorate how we are going to continue to move forward with 
trust within our system to understand how we operate as 
professionals. We are going to reinvigorate this as we move 
forward, and I think these are important.
    We also have to understand we have to challenge them. This 
is about challenging these leaders who have had so many 
challenges and been so successful, that we have to be able to 
continue to challenge them because we are going to need them as 
we move forward in the future. If confirmed, I will dedicate 
myself and the Army leadership to putting programs in place 
that allow us to do this.
    Senator Reed. Let me ask a question for both you and 
Admiral Winnefeld. One would love to be able to conduct a full 
spectrum, panoply of training, operations, and anticipation. 
But in thinking back 40 years now, when I entered the Army in 
1967, it was all about counter-guerilla training, et cetera. 
When I left it in 1979, it was all about the major land air 
attack battle in Europe.
    It raises the question of, not only in terms of reaction to 
what we have been through, but in terms of resources, are you 
both going to emphasize full spectrum capabilities, or are you 
going to drive to shift one way or the other, presumably away 
from some of the recent activities and more to other 
activities?
    Admiral Winnefeld. Senator, I would say it is a very good 
question that speaks to reset for what? That is going to depend 
on the strategic environment. I think as we look out ahead of 
us in that environment, we are going to have to be ready for a 
very broad spectrum of potential conflicts.
    If you look at what a conflict might be like in a place 
like Korea as opposed to other places, we are going to need to 
be prepared for that full spectrum of operations. That is going 
to be a big challenge, not only resetting the equipment for 
that, but also resetting our people for that, and making sure 
that we don't myopically focus on one type of conflict over 
another, but that we are prepared as well as we can be for 
whatever comes across the plate, but as General Odierno pointed 
out earlier, we do not have a very good track record of 
predicting what comes next.
    Senator Reed. General Odierno?
    General Odierno. Senator, as we look to the future, we are 
determining what we are now calling hybrid threat. I think this 
is the basis on how we move forward. Hybrid threat consists of 
irregular/regular terrorists and criminality. We have to 
understand that that is going to be more and more part of what 
we face no matter where we go.
    What we have to do is then develop the programs and the 
capabilities that allow our formations to adapt depending on 
where they will have to operate.
    I think that is what we have to focus on. I think there are 
some basic fundamentals that we must always train on. They must 
always be able to understand their weapons systems and be able 
to execute with their weapons systems with lethality any time. 
But they also must understand that the environment that they 
are going to operate in is going to be very different, and they 
have to be able to adapt and adjust. That is why we talk about 
leader development as well as part of this.
    Senator Reed. General Fraser, we had a chance to talk in 
the office, and you have, I think, a central role because 
without TRANSCOM, these folks do not have soldiers, sailors, 
marines, and ammo to do the job. I appreciate what you are 
doing.
    The challenges ahead, I think, are similar, which is in a 
tight budget to manage your resources very well. I think you 
are inheriting from General McNabb a quite effective 
organization, and I know you are going to carry on in that 
tradition. Let me just commend you for your service.
    Just to simply ask, because we have had a discussion about 
strategy, budgets, et cetera, any comments you might have on 
this issue as it affects TRANSCOM.
    General Fraser. Sir, if confirmed for the position, I will 
certainly work as hard as I can to continue to ensure that we 
not only effectively support the warfighter in the field, but 
do it in the most efficient manner. That is going to be 
partnering with our commercial partners, international 
partners, and working through other agencies. I look forward to 
that opportunity, should I be confirmed.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    General Fraser, I agree with Senator McCain's concerns 
about the logistic network through Pakistan. Do we have other 
options that you are aware of that we can rely on?
    General Fraser. Sir, I have not delved deeply into the 
plan. I know ongoing planning is happening. I know there would 
be a disruption. But if confirmed, I would delve deeply into 
that plan to ensure that any disruption that we have is 
minimal, to ensure that we continue to provide that effective, 
yet efficient, support for the warfighter.
    We would also have the ability to tap into strategic 
airlift from the United States, too. It is not just intra-
theater, but is also inter-theater. Intra-theater, it is also 
using ships. It would be a holistic look that we would have to 
address, sir, and I will delve deeply into that.
    Senator Brown. Based on Senator McCain's initial foray, I 
would suggest that you do that probably sooner rather than 
later. I know you are at a disadvantage, so I am sure you are 
going to assess what the risks of those other logistical 
avenues will be. I look forward to maybe offline touching base 
when you get settled. I think it is an important issue.
    General Odierno, I met with you yesterday, and you failed 
to include your Yankees connection as you were looking at my 
Red Sox memorabilia in the room. [Laughter.]
    But it is okay. It is okay.
    Chairman Levin. You are speaking for yourself when you say 
it is okay, by the way. [Laughter.]
    Senator Brown. I am speaking for two people actually, sir.
    Sir, obviously I asked a lot of questions yesterday and was 
obviously satisfied with those answers. I was just wanting to 
take a further question.
    The Army recently requested to reprogram procurement 
dollars away from the modular handgun system into the 
lightweight .50 caliber machine gun. It was based upon a 
decision to delay the procurement of the Army pistol to the 
fiscal year 2014, as well as changes to the requirement 
documents. Do you have any comments on that at all?
    General Odierno. I do not know the specifics of the 
reprogramming, but what I would say is that I think we are 
fairly happy with the handgun, and we think that we can 
continue to work and satisfy our needs through 2014. I think 
that we feel it is more of a need for the light machine gun, 
and that is why that was done.
    Senator Brown. Okay. Admiral, if I could shift over to you, 
one of the challenges facing the National Guard in its Homeland 
mission while at the same time it continues its obligations as 
an operational reserve that will continue to experience the 
stresses and strains resulting from today's global threat. If 
you could comment on that.
    Admiral Winnefeld. Thank you, Senator. First of all, I 
think it goes without saying that the National Guard has been 
absolutely fantastic over the last decade in stepping up to 
support operations overseas in places like Iraq and Afghanistan 
at the same time they continue to maintain their homeland 
security disaster relief-type responsibilities. They have just 
done a magnificent job.
    The process over the last year, I have grown very close to 
the Guard. I think I understand them better than I ever did as 
naval officer certainly, and they do face challenges.
    We are doing a much better job of equipping them, I think, 
that former Secretary Gates quoted going from 40 to 70-
something percent. I think we need to continue that progress to 
equip the Guard.
    I think that we need to make sure that we account for the 
same challenges that a guardsman has when he or she deploys 
regarding being a wounded warrior, regarding their families, 
and making sure that we support those people who tend to be 
dispersed around the country. We cannot lose sight of their 
family needs as we try to do the best we can to take care of 
the Active Forces' need, which tends to be, as hard as it is, a 
little bit easier.
    I think those are our challenges, and I think we just need 
to make sure that we continue to strike the right balance 
between the Homeland mission and maintaining the Guard as an 
Operational Reserve.
    Senator Brown. General Odierno, I was going to submit that 
question for the record. I apologize for asking that first 
question. But I did have a question, one that I forgot to ask 
yesterday. I understand that the Humvee will serve as the 
majority of the Army's and Marine Corps' light tactical vehicle 
fleet for the next 20 or 30 years with nearly 100,000 vehicles 
slated for recapitalization and modernization.
    However, it fails to include scalable solutions and provide 
lightweight and affordable protection capabilities. 
Nonetheless, these scalable solutions seem to be a key design 
feature for both the GCV and the joint light tactical vehicle 
(JLTV).
    Do you think the Humvee recapitalization program should 
also incorporate scalable protection solutions and rocket 
propelled grenade protection similar to the GCV and the JLTV 
programs?
    General Odierno. I think we constantly have to conduct 
these assessments. Obviously the protection of our troops and 
how we use these vehicles is important. We always try to 
include the most protection that we can, either in the original 
design or some sort of armor that can be attached later on to 
protect them.
    Now, I will get back with you, Senator, on this to give you 
a more specific answer than that.
    [The information referred to follows:]

    Yes, but given the light weight of a high mobility multipurpose 
wheeled vehicle (HMMWV), the scalable solution may not be as robust as 
that on a Ground Combat Vehicle or Joint Light Tactical Vehicle. 
Scalable protection is a very important tenet of our Tactical Wheeled 
Vehicle Strategy. We have seen how rapidly technology and the threat 
can change, so we have adapted a strategy to acquire vehicles with an 
inherent protection level we refer to as an A-kit, to optimize 
protection with other essential capabilities such as mobility, 
transportability, and payload. Supplemental protection in the form of a 
B-kit may be added as required. We remain conscious of cost and only 
plan to buy a fraction of the total requirement to meet our essential 
Army Force Generation need, while reserving the opportunity to insert 
future improvements in protection. The Army, with congressional 
approval, has initiated the Modernized Expanded Capacity Vehicle 
(MECV)/HMMWV Competitive RECAP Program that will incorporate scalable 
protection and plan for additional protection against rocket propelled 
grenades. The final MECV design will depend largely on solutions 
proposed by industry to meet our requirements within the cost 
constraints established as affordable.

    Senator Brown. Thank you. Admiral Winnefeld, sir, initially 
there was a conversation where Secretary Gates ordered us to 
find $100 billion, and then several months ago the President 
advocated a plan to cut $400 billion. Then there is a potential 
plan to cut $800 billion, and there is another senator who 
said, let us do a trillion.
    Sir, at what point do these cuts affect our operational 
readiness and then prohibit our men and women from not only 
getting the equipment, tools, and resources they need to do 
their job, but in fact do it safely and come home. Is there a 
number that you have a feeling is a good number? I just wanted 
to explore that a little bit.
    Admiral Winnefeld. From my current vantage point as the 
Commander of NORTHCOM and NORAD, I do not have a specific 
number in mind.
    Senator Brown. How would those cuts affect you and your 
present command position?
    Admiral Winnefeld. It depends on how they were applied. I 
think that your question is a very good one, and it highlights 
the importance of doing this in a strategy-based manner rather 
than just driving into individual programs and cutting out the 
ones that people like or do not like.
    As we get to a higher and higher number, we are going to 
find that the strategies that we currently have are going to 
reach inflection points where we are just going to have to stop 
doing some of the things that we are currently able to do, 
because what we cannot afford is to have any kind of a cut 
result in a hollow force. We cannot afford to have a cut result 
in irreversible damage to our industrial base. We have to make 
sure that the All-Volunteer Force remains viable and we take 
care of these young men and women.
    I think we are going to find strategic inflection points. I 
do not have an exact number for you, Senator.
    Senator Brown. Of course not.
    Admiral Winnefeld. But we are going to have to explore that 
very carefully and articulate it very carefully as these 
decisions come forward.
    Senator Brown. No, and I would ask that you do articulate 
it to the chairman and us so we can advocate and/or criticize, 
depending on what it is, and then help in that effort. We would 
be happy to do what we can certainly to provide that safety and 
security for our troops.
    [The information referred to follows:]

    To my knowledge, the Department has not evaluated what an $800 
billion or greater budget reduction would entail. In my judgment, cuts 
of this magnitude to defense spending would likely require us to 
reexamine our national security and military strategies. Based on that 
examination, we would need to look both across and within the many 
roles our military plays in protecting our Nation's vital and important 
interests based these adjustments to strategy. Such an examination is 
likely an iterative process, and would have to consider both capability 
and capacity within each role, and then determine how the role itself 
might change or how we might accept risk therein. We would need to 
ensure any force structure and modernization cuts do not come at the 
expense of readiness in order to avoid migrating into a hollow force. 
We also need to take care to protect our industrial base in a way that 
can adjust to potential future needs. As Vice Chairman, I will work to 
ensure any cuts to the defense budget are made in a way that sustains a 
responsive and versatile Joint Force.

    Senator Brown. Just one final question. General Fraser, the 
Guard and Reserve airlift and transport capabilities, how does 
that figure into your overall strategy?
    General Fraser. Sir, the total force is a key and integral 
part of our accomplishment of this mission, not only as they 
look forward towards TRANSCOM, but also in my current position 
as Air Combat Commander. It takes a total force to get the job 
done. There are men and women who are on a day-to-day basis 
making tremendous contributions. I am very appreciative of 
that, and I thank them for their service.
    Senator Brown. Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my welcome to our witnesses this morning and want to wish 
them well, and especially their families as well, because we 
know their families really make a difference in helping our 
witnesses in their work and also our country.
    Admiral Winnefeld, the Air Force and Navy predict that 
significant savings can be achieved by leveraging research 
efforts in the Globalhawk and Broad Area Maritime Surveillance 
(BAMS) program. There are other examples of the Services 
working jointly to take advantage of efficiencies. You have 
been working on that as well.
    Admiral, do you see additional opportunities for 
efficiencies and eliminating duplication?
    Admiral Winnefeld. Senator, thank you. I believe this 
speaks to what former Secretary Gates spoke to as the different 
bins where we approach the problem of decreasing potentially 
our budget. One of those is reducing redundancies and programs 
that just aren't working for us. The example you point to of 
the Globalhawk and the BAMS is a very good one.
    I do not have any specific instances in mind, but if 
confirmed, I can promise you that I will be doing my part to 
look for those because there may be some fertile ground there 
for us find greater efficiencies. Absolutely.
    Senator Akaka. Thank you. I am glad you are looking forward 
to that.
    General Odierno, as the Department continues to look for 
efficiencies and savings, I want to ensure that our troops have 
the necessary equipment and training to accomplish their 
missions.
    General, while I think the Active Duty will continue to 
fare well, I have some concern about resources for the Guard 
and Reserves. What will you do to ensure that they receive the 
training and equipment needed so that they can be ready 
whenever they are called upon?
    General Odierno. Thank you very much, Senator. As you are 
well aware, over the last 10 years, the National Guard and 
Reserve component have played such an integral role in all of 
our war efforts in Iraq, Afghanistan, other places around the 
world. They are a part of what we do. As we get into budget 
decisions, they will become more of a part of what we have to 
do.
    The operationalization of the National Guard and Reserve 
component in my mind has had a significant impact on our 
capability and the depth that we need to execute operations. 
Based on this, it is important that we keep them equipped.
    Part of the things we have to look is in the future as we 
come out of Iraq and Afghanistan, we believe we still need to 
have an operational capability within the National Guard and 
the Reserve component. We have to identify what that will look 
like. We have to ensure we have access to the National Guard 
and Reserve component.
    All of this will enable us then to ensure that they get the 
training and equipment necessary to meet the requirements that 
we will place on them as we move forward. This is critical to 
us in our success.
    I promise you that, if confirmed, we will constantly 
assess, study, work very closely with the National Guard 
Bureau, with the Reserve component leaders in order to deal 
with these issues.
    Senator Akaka. Thank you very much, General.
    General Fraser, in April, General McNabb testified that the 
CRAF is a critical component to rapidly deployed forces and 
equipment with response times between 24 and 48 hours after the 
mission is assigned.
    What are your thoughts on the future of this partnership 
with the civilian sector?
    General Fraser. Thank you, Senator. I agree with General 
McNabb that the CRAF, as it is called, is a significant part of 
what we have in our capabilities that are available to us. If 
confirmed, I will work my hardest to make sure that it stays 
viable, and that means reaching out and working with our 
commercial partners, and doing everything I can in working with 
this committee and Congress along those lines to keep it 
viable.
    Senator Akaka. Thank you very much.
    General Odierno, the Military Leadership Diversity 
Commission was formed to look at the policies and practices 
that shape diversity among military leaders. One of the 
recommendations was that senior leadership within the Services 
and DOD personally commit to making diversity an institutional 
priority.
    General, can you share your thoughts on this topic as well 
as potential efforts you would undertake, should you be 
confirmed?
    General Odierno. Senator, first off, I will tell you that I 
believe this is the strength of our Sevices, and I will speak 
to the Army specifically, is its diversity. That is what gives 
us the strength. It gives us people from all backgrounds, all 
capabilities that enables us to be very successful.
    In my mind, we become stronger the more diverse that we 
become. It is important that we have programs in place, both in 
our recruiting, in our ROTC programs, in our military 
academies, that then gets carried on as we continue to develop 
our leaders through our training programs.
    Now, we have to monitor this. We have to make sure that 
everyone is being fairly treated. But most important, we have 
to make sure everybody is given the opportunities to do the 
jobs that are career enhancing. We have to track this regularly 
to ensure that happens.
    I will be dedicated to that, if confirmed, to ensure that 
we understand the importance of diversity, include that in all 
of our developmental programs both for our leaders and all the 
soldiers within the Army.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Ayotte is next.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for your outstanding service to 
our country. The three of you are incredible leaders, and we 
are so fortunate to have you, and particularly want to thank 
all of the soldiers and sailors, our service men and women who 
serve underneath you for what they do for our country to keep 
us safe.
    Admiral Winnefeld, if confirmed to be the Vice Chairman of 
the JCS, you will have a very important role in advising the 
Chairman, the Secretary of Defense, and the President regarding 
a variety of DOD policies.
    In your written testimony, you discussed al Qaeda and the 
Arabian Peninsula, as well as al Shabbab, and you called al 
Qaeda a growing threat to our Homeland, and noted that al 
Shabbab is planning to conduct attacks against United States' 
interests in East Africa.
    During the hearing on June 28, I had the opportunity to ask 
Vice Admiral McCraven if it would be helpful 10 years into the 
war on terror to have a designated long-term detention and 
interrogation facility for terrorists from groups like al Qaeda 
in the Arabian Peninsula and al Shabbab. He said that he 
thought it would be very helpful. What is your opinion about 
that?
    Admiral Winnefeld. I would share, I think, both Secretary 
Panetta's and Bill's opinion on that, that it would be helpful 
to have a long-term detention facility. For now, we are making 
due, as Bill pointed out. We recently apprehended somebody, got 
pretty good interrogation of that person, and I think we got 
the information we needed. But it would be much better for us 
to have a longer-term solution.
    Senator Ayotte. I believe, Admiral, you were referring to 
Orsami, who was held on a ship for nearly 2 months and was 
interrogated on the ship, and then has been brought for trial 
within the United States.
    I remain concerned about the fact that we could have put an 
individual like that in Guantanamo versus having to rely on 
keeping individuals on ships because if we get to a situation 
where we need longer than a couple of months to interrogate 
someone, a ship does not become a viable option. Would you 
agree with me?
    Admiral Winnefeld. It is a lot less convenient to put them 
on a ship. It is a burden on the ship. But we did just fine 
with Orsami, and we may have to do that from time to time in 
the future. I do agree that would be a good idea to have a 
longer-term solution if we can find one. If I am confirmed, I 
will drill into that more obviously and work with the committee 
as required to see what the options are.
    Senator Ayotte. Can I ask you a question? There was an 
Associated Press report about a man named Ali Musa Daqduq, who 
is a senior Hezbollah operative, who has been held by the 
United States in Baghdad as a top threat to American troops. He 
has been accused of working with Iranian agents, basically with 
their Shi'ite militias, to fight Americans.
    The article noted that this dangerous Hezbollah terrorist 
could be turned over to the Iraqi authorities within days, and 
within the article, if it is purported to be true, U.S. 
security officials are worrying that he could escape or even be 
freed from the Iraqis.
    Admiral, are you familiar with this situation?
    Admiral Winnefeld. No, ma'am, I am not familiar with that 
specific situation.
    Senator Ayotte. I would ask you to follow up either here or 
in a classified setting an answer to what is the situation with 
this individual. It brings to mind to me, again, the concern 
with the lack of a long-term detention facility for individuals 
that remain dangerous to us.
    I firmly believe that Guantanamo is a top rate facility 
having visited it and should be that facility. We end up making 
decisions, like turning over people to other countries that are 
not prepared to assure their security, and then they end up in 
the battle against us again. It is one of the reasons I would 
like a follow-up on this particular individual. But, again, why 
I think it is so important that we establish this. I think we 
have a facility. It works well.
    I hope as you go forward in this role that you will be 
focused on this as you advise the President.
    Admiral Winnefeld. Senator, I will provide an answer for 
the record on that.
    [The information referred to follows:]

    Currently, we examine all options for persons captured outside of 
Afghanistan and Iraq on a case-by-case basis to determine an 
appropriate disposition. As part of that analysis, we consider long-
term detention as one of the possible disposition options. If a 
decision is made to detain a future capture in long-term detention, we 
would necessarily address an appropriate detention location. In 
reference to your specific question about Ali Musa Daqduq, he currently 
remains in U.S. forces' custody in Iraq, and we are looking at all 
options for his ultimate disposition.

    Senator Ayotte. Thank you very much.
    I also wanted to ask both General Odierno and you, Admiral, 
as well about the President's recommendations in terms of 
withdrawal from Afghanistan, and his plan that he has brought 
forth.
    I know a number of us have shared concerns. I am deeply 
concerned about one particular aspect of it, and that is the 
plan to fully remove the surge troops during September 2012 as 
opposed to at end of the fighting season. The fighting season, 
as I am sure both of you know, is generally from April through 
October. We are going to be withdrawing troops during July and 
August as we are in the middle of the fighting season. As far 
as I can see, there does not appear to be a strategic or 
operational reason to do it at that particular time.
    As we go forward towards 2012, Admiral, if it becomes 
apparent to you that based on the recommendations of General 
Allen and General Mattis that it is necessary to change that 
recommendation, or to stop the Afghanistan troop withdrawal in 
terms of the timing given that we are going to be in the middle 
of the fighting season, would you be willing to recommend to 
the President and the chain of command a change in that 
deadline based on conditions on the ground?
    Admiral Winnefeld. Senator, throughout the nomination 
process, it has been made very clear to me from the senior 
leadership of the Department and the Nation that they expect 
candor from me, and I intend to provide that candor. I do, in 
consultation certainly with the theater commander and with the 
combatant commander, if it becomes apparent that conditions on 
the ground warrant some sort of a shift, I would not hesitate 
to make a different recommendation.
    Senator Ayotte. General Odierno, I appreciate your 
leadership in Iraq, and obviously the key leadership that you 
provided working with General Petraeus and a successful surge 
in Iraq.
    I first wanted to get your view. Do you have an opinion 
whether there was any strategic, operational, or tactical 
advantages to the September withdrawal versus at the end of the 
fighting season?
    General Odierno. I am not privy to conversations that went 
on and what General Petraeus' recommendations, General Mattis', 
and now General Allen's recommendation had been. I am not privy 
to that.
    What I would say, though, is that this does remind me a bit 
of where we were in Iraq in 2008. Although Iraq and Afghanistan 
are different, the situations are somewhat the same.
    In 2008, we still had some violence. Although the surge had 
started to bring violence, we still had violence in Iraq. But 
we did have to begin to withdraw the surge forces for no other 
reason that we could no longer continue to supply the surge 
force because we did not have the capability to back fill surge 
forces.
    But what this does, I believe the most important thing in 
this plan is it provides flexibility now to General Allen to 
decide how he withdraws those forces, when he withdraws them. I 
think that is what is most important because that enables us to 
buy down risk. This is about risk. It is about how some people 
are concerned that we are assuming high risk at the end of the 
fighting season, August/September/October potentially as we 
withdraw. But at least the President and the Secretary of 
Defense and General Mattis have given him the flexibility of 
when he will bring these troops out.
    I would just say a year is a long time, so I think we have 
to wait. I think we have to see how he is able to execute this. 
I think it is doable, but he will be the one who has to 
determine the risk and then provide us input as it moves 
forward.
    Senator Ayotte. General Odierno, just a follow-up. Given 
your experience in Iraq, would you agree with me that General 
Allen's recommendations about the conditions on the ground are 
really what should determine the timing there?
    General Odierno. I think, again, yes. I think how he 
withdraws with what he has been given, I think, will be based 
on conditions. If he believes at some time the conditions do 
not warrant it, it is incumbent on him to bring that forward 
through General Mattis.
    Senator Ayotte. Thank you. I appreciate it.
    My time is up, but if I could ask just one quick question, 
Mr. Chairman? Thank you.
    General Fraser, I just wanted to follow up. Ranking Member 
McCain asked you about the strategic airlift capacity level. We 
just recently had a hearing before the Subcommittee on Seapower 
with General McNabb. Do you fully agree with his 
recommendations that we can meet our capacity at approximately 
300?
    General Fraser. Thank you, Senator. I have taken a look at 
the MCRS-16, and discussed with General McNabb and others, and 
I do support it.
    Senator Ayotte. Thank you very much.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your service and 
willingness to take on even additional responsibility.
    If I might indulge in a bit of personal commentary, Admiral 
Winnefeld, it has been terrific to have you in Colorado heading 
NORTHCOM. You are going to be missed, but you are going to add 
an enormously capable voice, presence to the Joint Chiefs, and 
you will always have a home in Colorado. I hope you know that.
    General Odierno, we have phenomenal presence with the Army 
at Fort Carson. We are really proud of our soldiers. We are 
looking forward to the arrival of the combat aviation brigade. 
I also wanted to point out that General Dave Perkins, who is 
deployed right now, and along with General Doherty, who has 
taken his place, and Colonel McLaughlin. The Army has been very 
well represented.
    You and I talked about the Pinon Canyon situation, and I 
know that we are committed to working with you and the ranching 
community to see if we can put that issue to rest.
    General Fraser, I do not know you as well, but I am 
reminded of an adage I have heard, at least quietly shared 
among the ranks of military leaders, and that is as follows: 
``Tactics are for amateurs. Strategy is rank amateurs. But 
logistics is for the true professional.'' We are excited to 
have you on the verge of taking the helm of this important 
command.
    General Odierno, if I could turn to the dwell time 
question. I understand in the current Army force generation 
cycle, we are just not going to be able to provide that optimal 
ratio of 2 years at home for every year deployed. My question 
is, we know that the quantity of time at home station will be 
limited. What steps might you be able to take as chief to 
improve the quality of that time at home?
    General Odierno. Thank you, Senator.
    First off, we are moving closer and closer to that goal. We 
are not there yet as you stated. As we stay engaged in Iraq and 
Afghanistan, we will work towards trying to achieve that goal 
because we know that is one of the key factors of ensuring that 
we sustain our soldiers and their families as we continue to 
ask them to sacrifice.
    There are other things that we can do. What we have to do 
first is we have to be more predictable to them while they are 
home, predictable where they will be stationed, predictable on 
what kind of training cycle they are in as they are preparing 
to redeploy in 2 years, so they can have more predictability 
with their families.
    That is an area we have to focus. It is about having 
resiliency centers that allow them to go and discuss issues and 
their families to discuss issues as they work with the 
reintegration and the stresses of repeated deployments. It is 
things like this that we have to continue to do that helps us 
to improve the quality of life of our soldiers and families, as 
well as continue to work towards increasing our dwell time 
home. Those are things we have to continue to focus on as we 
move forward, sir.
    Senator Udall. I look forward to working with you in that 
area, and I know how important it is, and I know you know that.
    Admiral Winnefeld, in your capacity as the NORTHCOM 
Commander, you have a unique understanding of the capabilities 
and the contributions of the Military's Reserve components. We 
all know since September 11, the Guard and the Reserve have 
played a vital role here at home and overseas.
    As we begin to transition out of Iraq and Afghanistan, do 
you anticipate there will be a need to adjust Reserve component 
force structure or the missions they currently perform?
    Admiral Winnefeld. I have not had a chance to really 
participate in the comprehensive review, Senator, that is going 
on right now that will consider that very question. I wouldn't 
want to get out in front of that or pre-judge it. We are going 
to have to take a closer look at it, but I really do believe 
that we need to strike the right balance between maintaining 
the Guard as an Operational Reserve, as well as maintaining 
their capability to conduct the day-in and day-out work that 
they do so well inside the States.
    There is an overlap there in terms of equipment and 
training, but there also is uniqueness there. We are going to 
need to strike the right balance as they come home.
    Senator Udall. If I could, let me add a question for the 
record as you undertake that survey. The question is as 
follows, if the current budget constraints and the reduced 
number of deployed troops would cause DOD to either cut into 
the Reserve or additional missions in order to maintain Active-
Duty Force structure and capabilities, how would you end up 
answering that question? I'll ask for the record.
    Admiral Winnefeld. Yes, sir, I will take that for the 
record.
    Senator Udall. That would be terrific.
    [The information referred to follows:]

    Force structure is not necessarily best viewed as a stark Active 
component versus Reserve component trade-off. To cut into the Reserve 
simply to maintain Active-Duty Force structure and capabilities would 
not serve our national security interests well.
    Over the last 10 years, we have seen a tremendous interdependency 
develop between Active and Reserve Forces. The success of this 
transformation is not only a result of the tremendous investment made 
in training, equipping and deploying Reserve Forces, but also our 
strategic policy commitment to employ an Operational Reserve. Moving 
forward, it is crucial to capitalize on these investments and the 
``value proposition'' presented by an operationally capable Reserve 
component.
    As we face a resource-constrained fiscal environment, the 
Department must take a comprehensive approach that will likely involve 
a rebalancing of the Total Force. There are many capabilities residing 
in the Reserve component that can be provided in a more cost effective 
manner than in the Active component. Conversely, there are capabilities 
that require very short timelines, or have such a significant demand 
signal and require such a high degree of training and currency, that 
they are best suited to reside in the Active component. We will need to 
strike a balance that best addresses the strategic environment we will 
likely face, while minimizing cost.
    The Office of the Secretary of Defense is currently conducting a 
Front End Assessment to provide a comprehensive analysis of our Total 
Force mix as we complete our draw downs in Iraq and Afghanistan. I look 
forward to working with the committee and Congress to implement their 
recommendations.

    Senator Udall. Let me turn to cyber. You and I talked about 
this the other day, and, again, your responsibilities at 
NORTHCOM have linked you to that very important and new concern 
we all have.
    The Comprehensive National Cyber Security Initiative that 
the President initiated has identified cyber as one of the most 
serious economic and national security challenges that we face.
    I know there is a limit to what we can discuss here, but 
can you discuss what you believe DOD's role should be in 
defending the United States and our vital assets against cyber 
attack? Then would you talk, if you think you can, about where 
a kinetic military response might be justified?
    Admiral Winnefeld. Clearly, DOD has a role in cyber defense 
of the country. The first and easiest thing to talk about is 
defense of our own networks within the dot.mil domain.
    We also have a role, I believe, in supporting the 
Department of Homeland Security in their role of helping defend 
the rest of government and the rest of the country. That is a 
complex relationship. I believe that former Secretary Gates and 
Secretary Napolitano struck a very good, solid agreement. 
General Alexander, my counterpart over at U.S. Cyber Command, 
is doing a very good job, I believe, of working with the 
Department of Homeland Security to construct how that support 
would work to include making sure that we have respect for 
civil liberties as we do that.
    That is a growth industry, to be sure, that we need to pay 
very close attention to.
    Regarding your question on offensive capability, it is very 
clear that an element of deterrence, one of the several 
elements of deterrence, is the ability to respond to an attack, 
and to make that attack so costly for an attacker that they are 
unwilling to conduct it. I believe that we have to consider the 
full range of potential responses to an attack, not only, by 
the way, military responses, but also the full range of 
diplomatic and using force as a last resort, as it were. But I 
would never want to rule anything out in responding to a 
serious cyber attack on this country offensively. It could be a 
cyber response or it could be a kinetic response, depending on 
the nature of the attack and the circumstances that surround 
it.
    Senator Udall. I would like to acknowledge the tremendous 
work that General Cartwright has done in this area. I know you 
will build on what he has learned and what he has proposed. 
This committee had an opportunity to sit in secured settings 
and learn more and more about the threats and also the 
responses that we have available to us.
    Before my time runs out, I want to turn to energy. I 
visited with all three of you about the opportunities and also 
the challenges we have in the energy space. Admiral Mullen, I 
think, put it quite well recently when he said, energy needs to 
be the first thing we think about before we deploy another 
soldier and before we build another ship or plane. He also said 
saving energy saves lives. I know you all three know that 
acutely.
    General Fraser, would you care to comment on any thoughts 
you have in regards to how we can do a better job and enhance 
our national security, and perhaps also develop some 
technologies that will have great application in the civilian 
sector.
    General Fraser. Thank you, Senator. I appreciate it.
    The Air Force is doing a lot in the area to certify our 
aviation assets to run on alternative fuels. We continue to 
move forward in a number of different platforms. In fact, just 
this year, at the Andrews air show, the F-16s that flew as a 
part of the Thunderbirds, we had an aircraft that was on 
alternative fuel. I think that we need to continue to move 
forward in that area.
    Right now, we also need to see about making it more 
economical. It is very costly, and so I think as more get in 
line and we find out that there are opportunities there, there 
is a competition for it that will drive costs down, and it may 
be an opportunity to look forward into the future to using 
these blends and these mixes or biofuels.
    I also feel that there are some technologies that we need 
to continue to explore with respect to our engines. Alternative 
engines, as we look to the future, are the things from the 
engineering and design perspective that we can get more 
efficient use out of our engines in the future? That ought to 
be something that is taken into consideration as we move 
forward to the future in everything that we do.
    Energy is an integral part of our analysis, and I look 
forward as I move into this position, if confirmed, to continue 
to move forward, ensure that we are doing things in a most 
efficient and effective manner.
    A couple of things that I have already been made aware of 
that we are doing is utilizing tools to maximize the assets 
that we have. There is a route planning tool that is used that 
has actually increased the efficiency along routes by upwards 
of 15 percent. There is an air optimization tool that has also 
been used to increase our ability by up to about 10 percent.
    It is these types of things I look forward to delving into 
even greater if confirmed and moving into my next position. 
Thank you very much, sir.
    Senator Udall. Thank you for that update. Again, I look 
forward to working with all of you on this important 
opportunity when it comes to saving energy and developing new 
energy technologies.
    Thanks again for your service.
    Chairman Levin. Thank you, Senator Udall.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you all for your service. I am sure you will be 
confirmed, and congratulations on being nominated by the 
President to very important jobs at a critical time.
    Admiral Winnefeld, whatever number of transport aircraft we 
have available as a Nation, do you agree with me that over the 
last decade we have been flying the wings off these things?
    Admiral Winnefeld. Sir, did you mean that for General 
Fraser?
    Senator Graham. Yes, General Fraser, I am sorry. I 
apologize.
    General Fraser. Sir, we are indeed flying at a higher rate 
with respect to a large number of our platforms, whether it is 
tactical air or strategic air. Our assets have been deeply 
engaged in today's fight.
    Senator Graham. As a matter of fact, the operational tempo 
is probably unheard of maybe since World War II. Is that 
correct?
    General Fraser. Sir, it is a high ops tempo across all of 
our platforms.
    Senator Graham. When we look at numbers, we all need to 
understand from the committee's point of view, I believe, that 
we are really aging these airplanes pretty quickly because of 
the demands.
    Admiral, as Vice Chairman, do you believe that the term 
``war on terror'' is a correct term for the threats we are 
facing?
    Admiral Winnefeld. That is a very good question. I think 
that term has passed out of vogue with a number of people, but 
I think we are still so much in a fight with al Qaeda and their 
related extremist groups that it sure feels like a war, yes, 
sir.
    Senator Graham. That is a good response, I think. What do 
you tell the public? Is it close to being over? Is it just 
beginning? Are we in the middle? Or we don't know?
    Admiral Winnefeld. I think I would echo Secretary Panetta 
when he was asked a question about this, and he said we are 
close to being able to strategically defeat al Qaeda. To me, 
that means their message being bankrupt, a lack of financial 
support that enables them to conduct operations and the like, 
that ultimately causes them to unravel from their internal 
contradictions, much the same way the Soviet Union did.
    But that said, al Qaeda is morphing. It is less of a 
centrally-controlled organization. There are more home grown 
terrorists out there that are ascribing to the ideology in some 
cases.
    This is not yet over. It is not even close. We still have a 
fight on our hands in places like Yemen and Somalia, and even 
ensuring, with the cooperation of our law enforcement partners, 
that of course we manage this at home.
    It is going to be a long struggle.
    Senator Graham. What would you call the potential threat we 
face from a nuclear armed Iran? Is that part of the war on 
terror, or is that a different threat all together?
    Admiral Winnefeld. Unless Iran were to hand a nuclear 
weapon over to an extremist, then I would consider it a 
completely different animal.
    Senator Graham. What do you think the odds are that if the 
Iranians developed a nuclear capability they would indeed hand 
it to an extremist group?
    Admiral Winnefeld. I think the Iranians understand that if 
they handed it to an extremist group, it probably would not be 
very difficult for us attribute any use of that weapon to Iran. 
I think they know that they would suffer grave consequences if 
that occurred.
    Senator Graham. Do you think they believe they would suffer 
grave consequences if they developed one at all?
    Admiral Winnefeld. I believe that they are going to 
understand that they are going to feel the effects of all 
elements of national and international power applied to them as 
required if and when they continue this development.
    Senator Graham. Do you believe that all the efforts of 
international power being applied is deterring the Iranians 
from obtaining a nuclear weapon?
    Admiral Winnefeld. It remains to be seen, Senator. It is a 
very good question. It certainly, I believe, slowed them down, 
but there is more pressure, I think, that could be and probably 
should be applied eventually.
    Senator Graham. In terms of the threats we face in the 
future, if Iran acquired a nuclear capability, what kind of 
threat and what would be the likely consequences of that event 
to our national security?
    Admiral Winnefeld. I think it would be grave if they 
acquired a nuclear weapon and the ability to deliver it.
    Senator Graham. Right.
    Admiral Winnefeld. Of course, we need to watch that very 
carefully and pace that so that we can----
    Senator Graham. That takes us to missile defense and to 
suppress the Iranian nuclear threat could require some pretty 
sophisticated military capability. Do you agree with that?
    Admiral Winnefeld. Yes, sir.
    Senator Graham. That the idea of attacking Iran with a 
single strike and neutering their nuclear capability if the 
President chose to do that is probably not going to happen. It 
would be a more sustained effort if we went down that road?
    Admiral Winnefeld. I would not want to rule anything out, 
Senator, at this point.
    Senator Graham. That is why F-35s and F-22s have become 
important, is that correct?
    Admiral Winnefeld. The F-35 and the F-22 certainly 
represent a very important capability.
    Senator Graham. That is why air refueling capability 
becomes important. That is why bases in the region become 
important.
    The reason I ask these questions is to get to what kind of 
threats the Nation faces. I would argue that the fight against 
al Qaeda has been successful, but not nearly over. It is 
morphing, that the Pakistani border is more unstable than it 
has been in the past. That when you look at the amount of money 
which we spend to defend the Nation, you have to look at the 
threats. We have not even gotten to North Korea yet.
    My question for all of you, is it fair to use gross 
domestic product (GDP) spending on defense as a guide to what 
is sufficient? Is that a good measuring device?
    Admiral Winnefeld. Senator, I think it is an indicator, a 
comparative indicator. But it is also very often comparing 
apples to oranges. If you look at what we spend as a percentage 
of GDP in World War II, it does not even compare to what we are 
spending now.
    Senator Graham. Right. Secretary Gates identified GDP as a 
benchmark for defense spending. I associate myself with that. 
When you look at World War II spending, you are right. We went 
up to 42 percent at the height of the war of GDP. Korea was 
8.23 to 13 percent; Vietnam was 7.65 to 10.8 percent. In 2010, 
we are spending 5.78 percent of our GDP on defense.
    If you believe it is a benchmark, would you agree that it 
is on the low end of conflicts in recent memory?
    Admiral Winnefeld. I would say factually it is on the low 
end GDP-wise, yes, sir.
    Senator Graham. General, can the Army withstand 49,000 
troop reductions and deal with some of the threats we have just 
talked about?
    General Odierno. The 49,000 troop reduction depends on our 
commitments, and I think the assumption in that reduction is 
our commitments to Afghanistan will go away. Our commitments in 
Iraq will go away and there will be no new more commitments 
generated.
    Senator Graham. Do you think it is logical for this country 
to assume in the future that we are not going to have to use 
the Army in some kind of role in the future operations in the 
war on terror?
    General Odierno. As I said earlier, we have never been good 
at predicting the future. We must have an Army that is capable 
of responding to worldwide issues.
    Senator Graham. When we respond, we want to respond with 
overwhelming force. We are not looking for a fair fight here, 
right?
    General Odierno. We are not looking for a fair fight, no, 
Senator.
    Senator Graham. Now, you mentioned to Senator Ayotte's 
questions that you believe that General Allen had flexibility 
in terms of withdrawal. Are you suggesting to the committee the 
President's dictate that we will remove all surge forces out of 
Afghanistan by September 2012 is conditions based?
    General Odierno. What I was suggesting is that he has 
flexibility within the timeline that was set for him by the 
President.
    Senator Graham. But my question is, it is not condition-
based. As I understand the policy, all troops will be removed 
by the end of September.
    General Odierno. What I was discussing was the flexibility 
he has within those dates of removing troops.
    Senator Graham. I guess he could bring 30,000 out on 
September 15 but that would be pretty hard to do.
    General Odierno. He could.
    Senator Graham. I just want to thank you all. As the 
committee inquires into what is enough to defend America, we 
are going to need your counsel and advice. There is a budget 
problem we are all facing. Defense spending has to be on the 
table. But I do not want to America to lose sight, Mr. 
Chairman, of the threats we are facing.
    This is not a time to seek a peace dividend because we are 
nowhere near peace. The way to avoid war is to be able to deter 
it. When you go into it, end it quickly, and we need capability 
as far as the eye can see.
    Thank you all and God bless.
    Chairman Levin. Thank you, Senator Graham.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman. Thank you all for 
your service and your willingness to serve. Thank all of you 
for most recently and some over the last few months having 
conversations about what is important to Alaska.
    Let me, if I can, to Admiral Winnefeld. Again, thank you 
for moving to this level. As Senator Udall said, we will miss 
you in regards to your role in NORTHCOM. I know I owed you a 
call back from your call to me, but thank you for figuring out 
who is in charge in the Arctic. We appreciate that more than 
you can imagine, per our conversation that we had.
    On that issue, if I can walk through a concern, and we have 
talked about this before. In dealing with the Arctic, which is 
now becoming more and more apparent to almost all aspects, it 
does not matter if it is military, industry, environmentalists, 
you name it, the Arctic is becoming a pretty important piece of 
the puzzle for our country. Of course, for Alaska, it is a 
critical piece.
    One of the pieces of this puzzle is the Law of the Sea that 
has been delayed or we are one of the few countries that have 
not signed on. One, I would be interested in your thoughts on 
that. Two, the concerns that we hear from people, and a very 
small amount of people, as we have talked about before, is it 
that somehow we will lose our sovereignty by signing on to the 
Law of the Sea.
    First, can you respond to the importance of the Law of the 
Sea from your perspective? Then this whole issue of sovereignty 
and that we would be giving up our role? Admiral?
    Admiral Winnefeld. Sir, I think the Law of the Sea Treaty 
is important to us, both from a strategic perspective, and also 
inside the military perspective. From the strategic 
perspective, specifically to the Arctic, it gives you a seat at 
the table when other nations are starting to step forward and 
assert their claims in the Arctic. We want to be there as part 
of the international community to participate in that process 
to make sure that that is adjudicated properly.
    Senator Begich. Can I hold you there for a second? Could I 
just read to you, and it might have been over the last month 
that Russia is moving aggressively with military operations 
potentially in the Arctic. Did I read that correctly?
    Admiral Winnefeld. They have made a number of statements, 
for example, putting a couple of brigades up in the Arctic. It 
remains to be seen where they go, what they do, and how they 
are configured. I am withholding judgment on that a little bit. 
But it is a significant statement on their part.
    Regarding the military piece of the Law of the Sea, there 
is nothing in the Law of the Sea that prevents us from 
exercising any of the standard operations that we need to be 
able to do--straights passages, freedom of navigation, and that 
sort of thing. If anything, it more formally codifies it and 
gives us a seat at the table as they might be modified in the 
future.
    I fully support accession to the Law of the Sea Treaty.
    Senator Begich. It does not, again, to the main question, 
limit or reduce our rights and sovereignty in the areas that we 
control?
    Admiral Winnefeld. As far as I can tell, and reading the 
treaty and consulting with our people, it does not. There are 
mechanisms that we have in place where if that were attempted, 
we would be able to avoid any kind of a limitation on our 
freedoms or sovereignty.
    Senator Begich. The military supports the effort to get the 
Law of the Sea Treaty resolved.
    Admiral Winnefeld. I do not know of anybody in the Defense 
Department, including the Navy, that is not in favor of 
acceding to it.
    Senator Begich. Thank you very much. I just wanted to make 
sure that is, again, on the record. I know we talked about it 
several months ago, and I just wanted to make sure.
    The second is, if I can shift here to, I sit also on the 
Veterans' Affairs Committee, and one of the big issues is 
transition from DOD, military operations, individuals, and then 
going into veterans' programs, and that transition. I can only 
speak for the last 2\1/2\, 3 years that I have been here, but I 
know there was concerns in the past that transition was not as 
smooth as it could have been. Can you give me some general 
comments of what you think, and how that is improving? The 
reason I ask, I come to the Armed Services Committee here, talk 
to the Active Duty members and hear pieces. Then I go to the 
Veterans' Affairs Committee and hear pieces. Not all the time 
do they meet. But I am seeing some progress, at least in my 3 
years here. But maybe you could respond to that and tell me 
what you think, and is there some areas of room for improvement 
in that arena?
    Admiral Winnefeld. Senator, it is a very good question. It 
is something that I would need to dive into deeply, if 
confirmed.
    I do know that there have been, as you point out correctly, 
problems in the past where we have not stitched together those 
two systems as we well we probably should have. I also know 
cursorily that the Department is determined to work with the 
Department of Veterans Affairs (VA) to stitch that together the 
way it should be. I can assure you that if I am confirmed, I 
will look into that.
    Senator Begich. I appreciate that. I know as we talked 
about what the future is in end strength, there will be less in 
the Active end and more in the veteran end. We want to make 
sure that transition works very smoothly.
    Very parochial, but yet a more broad sweep, and that is how 
the Defense Department will work with nonprofit organizations, 
organizations that are important to family support. What I mean 
by that is I know in Alaska we have a program, Alaska 
Assistance Dogs, that are important for many of our veterans 
and wounded warriors. It is basically run by a nonprofit 
organization. I know sometimes the Defense Department is very 
rigid in their access or allowability of access from 
nonprofits.
    One, do you see these organizations as important for the 
long term, especially with our wounded warriors? Two, can you 
make a commitment here that you will aggressively look at how 
we ensure these non-profit organizations really do integrate 
their services or provide these services that the military just 
cannot?
    Admiral Winnefeld. Sir, I think that Chairman Mullen has 
done an exceptional job of outreach into the country through 
his conversations with the country and a number of other 
initiatives that he has had in place to reach out and leverage 
every capability that the Nation can muster to try to help our 
families and our wounded warriors.
    I would be committed to continuing that. I think it 
involves a number of different bins, if you will, of awareness 
within the population and certainly businesses and schools in 
the country of what military families' needs are. It includes 
employment. It includes education. It includes wellness. It 
includes what I believe are quality of services that we provide 
to our military individuals. I think that non-profits can have 
a key role to play in that.
    I do not know the exact details, whether there are any 
particular limitations on non-profits being able to participate 
in that. But if confirmed, I will make it a matter of priority 
to continue to support Chairman Mullen's program in that 
regard.
    Senator Begich. If you see areas that, just because of 
regulatory or old systems that we put in place through 
legislation, that limits their ability, even though it sounds 
like a good idea to include them, please let me know or let 
others know, because I think we want to engage the community 
because I think the community is very interested and want to 
help as much as possible.
    Admiral Winnefeld. Senator, I relish cutting through red 
tape like that. As long as I can do it legally and ethically, I 
will be all over it.
    Senator Begich. On the legal end, if you see laws that need 
to be changed, that is our job, so please feel free to tell us. 
It may take longer than we want, but let us see what we can do.
    Thank you very much. To General Odierno, let me ask you a 
couple of questions.
    I know we had a great conversation regarding family support 
and the need to ensure--and there is no question in my mind 
after our conversation, your strong interest to have a strong 
Army, you need to have a strong family component to it.
    One area we talked about a little bit was education and how 
and what we need to do. Can you give me your thoughts--and I 
know I talked to you about ensure that our DOD facilities are 
properly maintained, but I thought it was very interesting your 
conversation about the community part of it and how you can 
kind of see this balance. Could you respond a little bit?
    General Odierno. As I have my three children here who all 
grew up in DOD schools as well as community schools, I think 
the important part about this is there are places where there 
is no other choice, but you have to have DOD schools. I think 
in those places, it is important that we support the 
infrastructure in order so our children can continue to be 
educated.
    But there are many programs around in many places, and I 
will use Killeen, TX, as an example, out of Fort Hood where 
there is a partnership where the Killeen school district is 
taking over the infrastructure on post in order to have our 
kids get a good education. I think these partnerships are 
important.
    My personal opinion is inside the United States, we should 
really continue to build these partnerships, and that should be 
the way ahead for our education. I think it brings more 
resources. It brings more capability to our children.
    If you could just indulge me, if I could just comment on 
the question you just asked. It is absolutely critical that we 
have the opportunity for non-profit organizations to supplement 
our support to our soldiers and families, wounded warriors. 
There are so many of them out there who do so many great things 
for our soldiers. It is important. We have to have that, and it 
is so important. Sometimes it is difficult for us to reach out 
them, and I think we have to look at ways at how we can do this 
legally and ethically in such a way where they can provide more 
support to our soldiers, sailors, airmen, marines, and their 
families in order to provide them what they need as we go 
through this time of war. I think that is a very important 
effort, and I would like to work with you and the committee on 
that, if confirmed.
    Senator Begich. Thank you very much. Thanks for those 
comments. I will just throw an idea, and then my time is up 
here, and that is, it just dawned on me as you were talking. I 
wonder if the military when the school board associations meet 
on an annual basis, they meet, I think, a couple of times a 
year, all the school boards from across the country. If the 
military actually participates in those meetings.
    General Odierno. I would tell you in a couple of ways. 
First, in the community I was involved with, there are four or 
five communities. Frankly, I met once a month with all the 
superintendents.
    Senator Begich. Excellent.
    General Odierno. They would come in together, and we had a 
program where I met personally with them. Those are the kind of 
relationships I think we have to have. But I think in many 
places that is in fact the case, but we have to continue at 
things like that.
    Senator Begich. Thank you very much. General Fraser, we had 
a great conversation. I have run out of time. But I would say I 
know you have been run ragged a little bit on logistics in 
Afghanistan and Pakistan and what could happen there. But from 
our conversation, I have faith that you are not going to leave 
the troops hanging out there without the right logistic support 
they will need to do their job. I just want to put that on the 
record.
    I know we talked about a little bit about a plan B. As you 
get confirmed, you will be engaging in that in an aggressive 
level. I want to at least reassure people who might be watching 
us that there may be slight gaps, but it is not about a total 
gap. The goal is to have a full plan to make sure all logistics 
are dealt with wherever our troops are, Afghanistan being one 
of the places obviously now. You do not have to respond. I just 
want to put that out there.
    Thank you very much to all three of you, and to the 
families that are behind you, thank you very much.
    Chairman Levin. Thank you, Senator Begich. Senator, if you 
will look into the issue that you raised about the National 
Association of School Boards and whether or not there is a 
connection at those national meetings, I would be happy to join 
with you. Perhaps the committee could even, if it is not 
already the case, suggest to them that it be the case.
    Senator Begich. I think that is a great idea, Mr. Chairman. 
Why it dawned on me when I was with U.S. Conference of Mayors, 
they never had one, and we created one because it was critical 
that mayors have that connection, so it just dawned on me. I 
will do that.
    Chairman Levin. It was a good idea.
    Senator Begich. We will do it.
    Chairman Levin. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you. Thank all of you, and 
congratulations on your appointments and nominations. I expect 
to support you and continue to support you after confirmation, 
which I am certain will happen.
    I truly believe we have the greatest military the world has 
ever known. It is large. It is mobile. It is courageous. It is 
well led by the finest operations corps we have ever had, and I 
believe the finest NCO corps. It is just a remarkable thing.
    As the ranking member of the Senate Budget Committee, 
things are going to be tighter in the years to come. I would 
just say that we have to tighten our belts, but do it in a way 
that does not damage this fabulous morale and spirit and 
capability that the military has accomplished. I just would say 
that in opening comments.
    General Odierno, Senator Ayotte, a former prosecutor like I 
have been, asked you about prisoners, prosecutions, and jails. 
Those are fundamental things. I truly think we are going to 
have to examine how we are detaining dangerous individuals.
    I am aware that there are problems in Afghanistan now with 
some very dangerous individuals being arrested and being 
detained and then being released rather rapidly. Are you aware 
of that? Is it a concern? If you need assistance in bringing 
that to the right level, let us know.
    General Odierno. I am not aware of any of the specifics in 
Afghanistan, specific cases, but I would make a general comment 
on this.
    What we have learned over the last 5 to 6 years 
specifically is that the ability to detain those dangerous 
individuals for long-term detention is critical to us in 
getting the information we need to prosecute our campaigns. It 
was the case in Iraq. It was the case in Afghanistan, and we 
found that to be important.
    I think it is important that we take a look at this. I 
clearly agree with Admiral McCraven's assessment of this, that 
it is important that we take a hard look at this because it 
does have a significant impact in us getting the information 
necessary to continue to prosecute our operations around the 
world against terrorism.
    Senator Sessions. I just agree. I think policies in Iraq 
changed. I think we did a better job of identifying using 
normal police techniques, fingerprints, biometrics, and bomb 
characteristics to identify people. They have to be detained. 
It is very demoralizing and dangerous to release someone who is 
going to go back to the war and kill people. We would not do 
that in the United States.
    My observation is that undeveloped nations are consistently 
deficient in being able to detain people in prison for long 
periods of time. I suppose that is one reason they had a death 
penalty so much. They did not have the ability. My observation 
is that people tend to get out. They either pretend to talk. 
They either bribe their way out. They either escape, or they 
are released because there is not room for them.
    I do think that you should give attention to that, and if 
we need more resources, I hope you would call on us.
    With regard to our forces in Europe, the original plan was 
to bring back two Army brigades, General Odierno, from Europe. 
I understand those plans are now on hold. According to Stars 
and Stripes, in April, the Army will return only 1 brigade, and 
that only represents 5,000 soldiers out of 80,000 U.S. troops 
in Europe.
    I think it is time for us to have a serious heart-to-heart 
with the Europeans on their defense expenditures. In Germany, I 
understand they are about 1.2 percent of GDP. Other countries 
are at that level in Europe. Very few are meeting their goal of 
2 percent of GDP on defense as a North Atlantic Treaty 
Organization obligation, while we are at about 4 to 5 percent 
of GDP on defense.
    Are you aware of this discussion? Maybe Admiral Winnefeld 
would be, and I just have to say it means a lot economically to 
Germany or other places where we have people spending money in 
their economy. It means a lot to our Nation when our people are 
at home spending money in our economy, number one. Number two, 
if they do not need to be there for serious strategic reasons, 
I think we should look to bring more home and reduce our 
presence.
    General Odierno. Senator, my understanding of that decision 
is similar to yours, the most recent decision.
    I would just say as we go through these budget reductions 
potentially, we have to review all of this again. In my 
opinion, it will have to be reassessed. Where this will all be 
part of where we put Army force structure, where we most need 
it depending on what is left based on the budget realities that 
we are facing over the next 10 years. That will have to be part 
of the discussion.
    I am assuming we will have to continue to look at this, 
continue to look at strategically what is best in order for us 
to execute our policies. We certainly will continuously review 
this as we move forward over the next several years.
    Senator Sessions. I was in a security conference some 
months ago, and the British told us they were reducing their 
defense spending 8 percent. Frankly, they are not spending 
enough now. I responded, I guess you feel okay because the 
United States will be there to take care of you. But we need to 
have this kind of conversation with our allies. They have to 
participate more.
    I see Senator Lieberman relooking at the budget numbers. A 
lot of people have complained that our deficit is a result of 
our military efforts in Iraq and Afghanistan. Looking at the 
numbers, that is not really so. We have spent a tremendous 
amount of money on those two efforts, about $1.5 trillion, 
maybe a little less. The deficit has increased about $15 
trillion during this time.
    At this point, we are projected, this year we are spending 
about $150 billion on the military effort, $158 maybe, this 
fiscal year, going to $118 next fiscal year. But our deficit 
this year is $1,500 billion. Those numbers would come down to 
$118 billion and continue to drop under the plan that we have 
seen and I am hopeful that we can adhere to.
    But I just want to say that while every dollar has to be 
managed carefully, the reason we have a severe financial crisis 
in America is not because of our military effort. It may be a 
part of it, but it is about 10 percent. We will have to look at 
it.
    You do represent about half of the non-defense 
discretionary spending. In the last 2 years, non-defense 
discretionary spending has increased 24 percent. Military 
spending is about 2 or so percent, maybe 3. It is projected to 
stay at 2 or 2\1/2\ percent the next decade, and I do not think 
it will. I do not think we can have that big an increase, 
frankly. But we have had much, much larger surges in non-
defense spending than defense spending, and certainly in recent 
years.
    How we work our way through that, I do not know, but I call 
on all of you to realize that we are at a level of spending, 
borrowing 40 cents of every dollar we spend, that cannot be 
sustained. You represent about half of the discretionary 
spending budget of the United States, separate from Social 
Security and Medicare. You will have to be part of the belt 
tightening, there is just no doubt about it.
    General Odierno, you have had such tremendous on-the-ground 
experience in Iraq and in that area. I know you are fully aware 
of the requirement to give your honest and best judgment to 
Congress when you are called upon to do so. You have to respect 
the Commander in Chief and the civilian defense officials. But 
you have led those men and women in combat. Many of them have 
lost limbs. Many of them have lost their lives. I am sure you 
feel an obligation to speak for them to avoid unwise decisions 
that could inadvertently give away the things they fought and 
too many of them have died for.
    Will you share with us that first and foremost that you 
will give us your best military advice regardless of the 
consequences, that you will just give us your best leadership, 
because I think uniquely as the chief of staff have the kind of 
experience that could help us make the difficult decisions that 
we will be facing.
    General Odierno. Senator, I absolutely always give my 
honest and frank opinion, especially when it comes to taking 
care of our soldiers and their families, but on all issues when 
asked. I will continue to do that.
    Many of the issues that we deal with are not black and 
white; they are very gray, as you are well aware. There are 
many second, third order effects that impact decisions as well 
as opinions on issues. It is my job, I believe, from a military 
perspective to always identify the issues, identify what the 
risks are, and give my opinion how to mitigate those risks and 
be successful in accomplishing our missions. I will always do 
that when I am in front of the committee or any other forum 
that I participate in within the government.
    Senator Sessions. I know our soldiers and their families 
and Americans are happy that we can draw down our force 
presence as rapidly as possible. But what impact would it have, 
in your opinion, if we drew down too fast and ended up 
undermining the success that we have gained, and maybe 
suffering a strategic loss that was not necessary as a result? 
What impact would that have on our morale of our men and women, 
as well as strategically?
    General Odierno. Senator, my assessment is, it obviously 
would have a huge impact. But I would just say I do not think 
there is anybody who believes that is the case.
    Senator Sessions. I understand. My question to you is, but 
if we did so, if events occurred unlike something you expect 
this moment, and we unwisely did not handle the situation based 
on a goal just to reduce troop levels regardless, it would have 
an adverse impact on the men and women who put their lives at 
risk for us, would it not?
    General Odierno. I would just say obviously that for many 
who have participated in the wars in Iraq, Afghanistan, and 
other places around the world, obviously they believe in what 
they are doing. That's why they continue to reenlist. That is 
why they continue to go back on multiple, multiple deployments.
    It is our duty as leaders to ensure that we do everything 
we can to ensure their success and safety. We will never stop 
from doing that. If that becomes the case, it would obviously 
have an impact on morale as we move forward.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. I want to 
begin by thanking each of you for your extraordinary service to 
our Nation, and thank your families as well as others have done 
who share in the sacrifice that you have made. I know some of 
them are here today, and I would just like to assure them that 
we share in the gratitude of the country for their as well as 
your service.
    General Odierno, you have talked very eloquently and 
powerfully about your caring and attention to all of our 
warriors, our wounded warriors and those who are serving now in 
theater. Most especially to the need for better care when it 
comes to traumatic brain injury and post-traumatic stress. I 
understand from your testimony and our conversations that you 
will continue to seek to upgrade and improve the kind of care 
that the military provides to those warriors. Am I correct with 
that assumption?
    General Odierno. Absolutely, Senator.
    Senator Blumenthal. So far as particularly the problem of 
suicide, which you again have spoken to very eloquently and 
powerfully in your written testimony, and I was very impressed 
by it. Would you have plans to try to upgrade the kind of 
preventive care that is provided to our warriors?
    General Odierno. The work that General Pete Chiarelli has 
done, the Vice Chief of Staff for the Army, has been 
tremendous, but it is not done yet. There is much more that we 
have to do. We have identified factors, but now we have to 
figure out how we mitigate those factors that we believe are 
responsible for suicides and all the components of the Army and 
the Armed Forces themselves. We still have a lot of work to do, 
and we are dedicated to doing all we can to reduce this 
terrible risk that we have today.
    Senator Blumenthal. Do you have any thoughts that you could 
share with us about potentially the causes of those increased 
rates of suicide, the stress factors and so forth?
    General Odierno. Senator, it is a combination of things. It 
has to do with dwell time and the number of deployments. It has 
to do with family stress. It has to do with uncertainty. It has 
to do with many other issues that we deal with. It has to do 
with physical injuries that affect individuals mentally. It has 
to do with sometimes the home environment that they are 
involved with. It is all of these things.
    The main thing is we have to understand what those risk 
factors are, how many are applying, and when does it become 
critical. It is about us training our young leaders to 
understand the signs, to understand the factors. The Army 
specifically, I will talk to, has done a lot of work in helping 
our leaders to understand these issues.
    But then it is about the individuals themselves feel 
comfortable in identifying that they do have their own issues, 
and they do come forward, and they do ask for assistance and 
help. That is so important in this part of this process is that 
they feel comfortable doing that. We have to create an 
environment that allows them to do this, and that is the key 
that we want to continue to move forward in and accomplish, 
sir.
    Senator Blumenthal. I do not mean to put you on the spot 
here, but part of the popular view of making a frank and candid 
self-reporting of problems more effective and more frequent, 
and making it more acceptable many people have debated might 
involve the condolence letters that are sent by the President. 
I wonder if you could share with the committee your view as to 
whether those letters should be provided more broadly, more 
frequently, to the families of individuals who might be 
affected?
    General Odierno. I will not comment specifically on the 
President, but I will comment that as a commander in Iraq at 
the division, corps, and theater level, I sent letters to all 
to include those who committed suicide because they were such 
an integral part of our force. They are a part of our family, 
our Army family, and they are our comrades. Although they might 
have struggled with the situation they were in, we still owe 
them the utmost respect and honor for their service.
    Senator Blumenthal. Thank you. You also have commented in 
your written testimony, and again, in other forums about the 
need for better transition for our wounded warriors to the VA. 
Maybe you could expand on that point.
    General Odierno. First off, the Army has done some good 
work, and they have 70 teams out around the country, 
specifically located with VA centers. They are helping us to do 
a better transition as they transition out of the Army into the 
Veterans Affairs.
    From anecdotal discussions that I have actually had 
recently with several wounded warriors who are getting ready to 
transition, one of the things we have to continue to work is 
the discussion between treatment of a military doctor to a 
Veterans Affairs doctor, because one of the things that bothers 
them and sometimes becomes traumatic is that they use different 
treatment regimens, and it makes them feel uncomfortable. We 
have to work this piece.
    I think we have the administration piece taken care of. We 
now have to look at the medical transition itself as they 
transition from military medical care to Veterans Affairs 
medical care.
    Senator Blumenthal. I thank you and commend you and welcome 
your attention to this problem. I know it comes from a genuine 
caring, and I think that is extraordinarily impressive. Any way 
that I can be helpful or I am sure members of the committee, we 
will be there.
    General Fraser, I wanted to follow up, if I could, on a 
couple of the questions that Senator Udall mentioned, and some 
of the comments in your testimony about cyber security, and 
your comment in your testimony that you move lots of 
information. I think the American public does not appreciate 
how much information is part of what you transport, so to 
speak.
    I wonder if you could share with the committee your view as 
to whether more does need to be done of an offensive or 
deterrent nature to make invasions or intrusions more costly, 
as Admiral Winnefeld commented, for any enemy that has an 
intention to do so.
    General Fraser. Thank you, Senator. The cyber domain and 
protection of our data is a high focus area, certainly of mine 
in my current position, but as I look forward and moving 
possibly, if confirmed, into TRANSCOM's realm in which they 
deal not only in the .mil, but also the .com domain. The reason 
I mention that is because there is a seam there, and there has 
to be a partnership to ensure that the right data is getting to 
the right place with the information at the right time. 
Protection of that data is something that I will certainly be 
focused on, if confirmed, and move to TRANSCOM.
    I think behind the defense and the .mil domain and the 
active defense that we have, that we are doing a lot. What I 
would be doing is then going out and engaging our commercial 
partners to ensure that they are protecting their data as much 
as possible. That is going to have to be a collaborative effort 
that we will have to work together to ensure that we are able 
still to accomplish the mission. Cyber will be very high, if I 
move into this position, to ensure the protection of that data.
    Senator Blumenthal. Thank you. My time has expired, but I 
would just like to suggest in closing that at some point these 
attacks obviously have to be viewed as an act of war on this 
country, whether it is on .mil or .com, if the attacks on the 
.com area so impact our infrastructure, our utilities, our 
banking system that they in effect constitute an act of 
hostility toward this country. I welcome your thinking about 
that topic, as you have indicated you are doing, and look 
forward to working with you.
    I am sure you will be confirmed. You certainly have earned 
it, and the country deserves and will need your service. I want 
to thank you in advance. Thank you very much.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I am really sorry 
I could not get here earlier this morning, but I am glad I 
could get here while we are still in session to welcome the 
three nominees, to thank you for your extraordinary service to 
our country, and to say that I think President Obama could not 
have made better selections.
    I have known the three of you in your previous positions, 
particularly in the case of General Odierno and Iraq, and 
Admiral Winnefeld at NORTHCOM. I know you have done really, not 
just good work, but great work, really transformational work, 
and I appreciate it. We are lucky to have you in our service.
    In the case of General Odierno, getting here while you are 
in still in session gives me the opportunity to welcome his 
family, at least one of whom had the wisdom to marry a woman 
from Connecticut and to become my constituent. He also is 
living out my childhood fantasy of working for the greatest 
sports franchise in the history of American sports, that is the 
New York Yankees. [Laughter.]
    With Senator Blumenthal and me here, I think we have a 
majority on the committee to support that conclusion. 
[Laughter.]
    Senator Blumenthal. I would second that observation. 
[Laughter.]
    Chairman Levin. The quality of our dismay outweighs the 
quantity of your support. [Laughter.]
    Senator Lieberman. Okay, enough of that.
    I know that many of my colleagues earlier have talked about 
the impact of budget cuts on the military. This is a real 
serious challenge.
    We are the Armed Services Committee, so I suppose we 
understandably feel a special protectiveness of the military 
budget, but we should. To me, it is, after all is said and 
done, the first responsibility of our National Government, 
which is to protect our security. If we do not have security, 
the American people do not have anything else that matters. We 
do not have our freedom, and nor we do have the economic 
opportunity that has been part of what it has meant to be an 
American.
    Everybody has to give in this crisis. As Admiral Mullen 
said a while ago, our national debt has become a national 
security problem, and, therefore, we have to work together to 
cut it down. But we have to be really careful about the impact 
of these cuts on our military.
    We all have to understand that the classic members' 
district advocacy has to be tempered by the national interests 
of getting our government back into fiscal balance. But beyond 
that, I think, and this is what I want to focus on in my 
questions, how we treat the military personnel, the men and 
women in uniform, and the numbers we have, are critically 
important, and are beyond parochial district level or State 
level concerns. These are what I want to focus on.
    A lot of us on this committee, including myself, spent a 
fair amount of time in recent years trying to make sure that 
the two Services that have been most stressed, under most 
demand in Iraq and Afghanistan, namely the Army and the Marine 
Corps, had end strength increase in recent years, and 
fortunately that happened.
    Now, the Army has been directed to carry out a reduction 
from the 570,000 essentially that we reached in Active Army 
numbers down to 520,000 or 521,000 over the next 5 years. I 
know the Army, General Odierno, has said they will do that. I 
think we have to be really careful about going beyond that.
    But you said something, sir, in your answers to the 
questions that the committee asked, written answers, that when 
I read, I was so glad to see you say it, and I agree 100 
percent. Here is the quote: ``End strength reductions should 
not be automatic. They are conditions based and will require 
periodic assessment.'' We are not operating in a static 
universe. Things are changing all the time with regard to our 
national security.
    I wanted to ask you, General, if you would discuss what are 
some of the conditions that as Chief of Staff of the Army you 
will ask be weighed before these end strength reductions are 
carried out?
    General Odierno. Thank you, Senator.
    As I look at this, I believe that the reduction down to 
520,000 has been based on the temporary end strength increase 
of 22,000, which was put into place to account for frankly many 
of the wounded warriors and other non-availables that we have 
had that has taken away from meeting our requirements, of 
filling our units.
    The other 27,000 is based on the fact that the assumption 
that we will continue to come out of Afghanistan on time by 
2014. Because of that, we will be able to maintain a dwell time 
deployment ratio that is something that we can sustain over a 
long period of time.
    If those conditions change, if we decide to stay in 
Afghanistan longer or if another contingency comes up that 
requires deployment of Army units, then that would be something 
that could impact that force reduction, because what it could 
then do is significantly again increase and go after the dwell 
time, and put even more pressure on the Army itself.
    Those are the kind of things that we have to understand, 
and those are the kind of things that we have to constantly 
reassess based on reality and what is going on around the 
world.
    Senator Lieberman. Okay. I appreciate that answer. Just one 
follow-up on it.
    Am I right that the 22,000 number of non-deployables, 
including wounded warriors, has not gone down?
    General Odierno. In fact, it continues to go up.
    Senator Lieberman. It goes up. That also puts stress on you 
as you try to go down.
    General Odierno. It does.
    Senator Lieberman. Yes. I think we have to follow that 
carefully, and I hope there may be a way, and I will work with 
the chairman on this, to see if in the defense authorization 
bill when it comes to the floor, we can state some of these 
conditions, because just as we say, our drawdowns in Iraq and 
Afghanistan have been conditions based. It seems to me it is 
fair to say that the drawdown of our end strength, how many 
people we have in uniform, ought to be conditions based as 
well.
    I wanted to ask about Iran. I do not believe this has been 
asked before. General Odierno, because we have talked about 
this when you were in Iraq, Army personnel and others in Iraq 
at different times over the last years have come out and 
specifically said, publicly, I am not revealing anything 
classified, we know that Iran has been training and equipping 
Shia extremists who have then gone back into Iraq and are 
responsible really for the murders, for the death of hundreds 
of American soldiers
    I guess people could argue about whether it is hundreds. I 
believe it is, but it is certainly some, and the wounding of a 
lot of others, and the killing of thousands of other Iraqi 
soldiers and civilians.
    I was really encouraged by that. I know a lot was going on. 
In a sense, you would say that if a far nation is training 
people to come in and kill our soldiers, classically it is a 
causus belli. It is cause for war. But I understand there was a 
lot going on.
    I was very encouraged about a week ago, both Secretary 
Panetta and Admiral Mullen made statements. Admiral Mullen 
said, ``Iran is very directly supporting extremist Shia groups 
which are killing our troops.'' Secretary Panetta said, ``We 
are very concerned about Iran and the weapons they are 
providing to extremist in Iraq.''
    We cannot simply stand back and allow this to continue to 
happen. This is not something we are going to walk away from. 
It is something we are going to take on head-on.
    Admiral Winnefeld, as you begin a new chapter in your 
career as the Vice Chairman of the Joint Chiefs, I wanted to 
ask you to comment on, do you agree with Secretary Panetta and 
Admiral Mullen about this behavior by Iran?
    Admiral Winnefeld. Sir, I absolutely agree with it. I would 
not want to take away any options or anything like that, but I 
would say that they are testing our patience to be sure. We 
always would use force as a last resort. There are plenty of 
instruments of national power that can be applied. But it is a 
very serious problem, and I fully support what Secretary 
Panetta and Chairman Mullen said about it.
    Senator Lieberman. I thank you for your statement. I do not 
have to say to any of you because you have been on the 
battlefield, and you know how important it is. But we have now 
escalated our identification of what the Iranians are doing. I 
think if they do not stop, our credibility with them and a lot 
of others in the region, if not the world, is going to go down 
if we do not do something about it. I appreciate your 
statement, and I am encouraged by the others. None of us want 
to have more conflict, but we are not asking for it by our 
behavior. In this case, they clearly are.
    Anyway, I thank the three of you. I look forward to working 
with you. I would say that, if I may paraphrase an old 
political slogan. The great thing to say is that not only are 
the three of you extraordinary, but you are as extraordinary as 
the people you are leading. In other words, this is a bottom 
up, top rate, high quality military we have. To me, it is the 
one institution in our country that I always say look at it 
when people tell me that America's best days are behind us. I 
wish I could say that as you look at the U.S. Congress. I 
cannot quite say that at this moment, but they can look at the 
military. I thank you for that.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Lieberman. I 
share your thoughts and comments very deeply.
    Just a couple of quick questions. One, General Odierno, 
about Iraq. You have indicated you would support retaining some 
U.S. forces in Iraq beyond the December 31 deadline if there is 
a request. How much longer does Iraq have to make a request for 
us to consider?
    General Odierno. Every day it makes it more difficult 
because it is not only us. I know General Austin has built a 
lot of flexibility in his plan for the final withdraw of our 
troops, but he has to do some planning.
    But, more importantly, there has to be some work done on 
some sort of a status of forces agreement between our two 
countries. It has to be done soon because it could take a 
little bit of time to get that. I cannot give you a specific 
date, Mr. Chairman, but I would say it has to be the sooner for 
us in order to make this appropriate transition.
    Chairman Levin. You said something before, which I think 
you did not exactly mean, but let me probe you on it. You said 
it is important we provide Iraq with the support they think is 
necessary. I assume it would be a joint decision, not only they 
think is necessary, but that we are willing to provide.
    General Odierno. Yes. I think we have done a joint 
assessment where we identified gaps in their capabilities, and 
that has been done jointly and driven by us.
    Chairman Levin. So, it is not only what they think.
    General Odierno. It is not just what they think. It is a 
joint assessment.
    Chairman Levin. Now, General, relative to the importance of 
keeping the Guard equipped, you indicated very strong feelings 
about the importance of doing that because there are 
requirements we place on them, in your words, among other 
things.
    We have in the Army, the main battle tank, the M1-Abrams, a 
tank which is going to remain in the inventory. As it currently 
stands, it is going to end production of upgraded M-1A2 version 
vehicles in 2013. The Active Army now has the M-1A2 version of 
the tank, and most of the Guard has the M-1A1 version. Stopping 
that production will mean stopping of the equipping of the 
Guard with the M-1A2.
    Here is the issue. The Army is going to begin the next 
Abrams upgrade modernization effort in 2016, and they are going 
to end the production of the upgraded M-1A2 in 2013 as it now 
stands. There is going to be a 3-year gap there between 
production of the upgraded M-1A2 in the next upgrade program. 
But we know there is going to be an upgrade program. That is a 
given as I understand it.
    The Army has initiated a comprehensive cost benefit and 
risk analysis of the impact of that gap in production on our 
armored vehicle production facility, which is in Ohio, and the 
supporting industrial base. The final results of the analysis 
are expected at the end of the year. We are not going to have 
the results of the analysis until the end of the year.
    In considering the costs of closing and restarting the 
production line, which we know is going to be restarted, should 
we not consider the increased capability in the National Guard 
tank units which would result from continuing this production 
during this gap?
    General Odierno. Certainly, Senator, we will take a look at 
it.
    The problem we have is we will have several other factors 
maybe that could impact on this. It has to do with budget 
reductions and force structure reductions and the mix that we 
decide we need in the force. It could be that we decide that 
potentially the number of heavy units reduce, and we are able 
to push more M-2A2s to the Guard out of the Active component. 
That could be one solution. Part of this problem is waiting to 
see what we are going to have to do with our force mix and 
force structure as we think about this problem.
    But I understand the issue, Senator. We will look at it 
very carefully, and we will work with you on this issue.
    Chairman Levin. All right, because there is a question as 
to whether or not it pays us to terminate the cost to restart 
and whether those costs are not better.
    General Odierno. I am not completely familiar with all the 
details of that, but I will certainly get back to you, Senator.
    [The information referred to follows:]

    The M1A1 SA remains one of the best tanks in the world, providing 
overmatch against known threats and digital command interoperability 
within the Heavy Brigade Combat Team formation. The Army does not plan 
to immediately replace this very capable and relatively young portion 
of the Abrams fleet. The Army National Guard began receiving the M1A1 
SA tank in August 2008 and will complete fielding in June 2014.
    The Army has a young Abrams fleet. By 2013, when the Army fully 
meets the Abrams tank requirement for the Heavy Brigade Combat Team, 
the average Abrams fleet age will only be 2- to 3-years-old. Because of 
this, the Army will not need to begin modernizing through 
recapitalization of the Abrams tank fleet until approximately 2016. Our 
analysis indicates that total costs would not exceed $822 million for a 
3- to 4-year shutdown and restart of Abrams tank production. These 
costs include the impact on the supplier base; government-furnished 
materiel; storage, preservation, manpower and equipment; re-qualifying 
vendors; a Production Verification Test and the impact to Anniston Army 
Depot. In comparison, maintaining a production rate of 70 tanks per 
year during fiscal years 2012-2016 will cost approximately $2.67 
billion.
    Analysis of the most cost-effective approaches to sustain the 
required combat vehicle industrial base capabilities during the 
upcoming production gaps is ongoing. This analysis is expected to be 
complete by December 2011, and the results will help shape and begin to 
right-size the industrial base in an effort to maximize more cost-
efficient capabilities within the industrial base.
    Given that the Army can save approximately $1.85 billion by 
shutting down and restarting production, the Army must stop Abrams tank 
production with the last M1A2 System Enhancement Program v2 tank 
delivery in June 2013.
    I would be happy to have my staff provide an update to your office 
once this analysis is complete in order to provide you with the Army's 
plan for the Abrams tank and the industrial base.

    Chairman Levin. Thank you.
    This is for Admiral Winnefeld. Do you agree that missile 
defense systems should be operationally effective and cost 
effective and should be tested in an operationally realistic 
manner before deployment?
    Admiral Winnefeld. Yes, sir, I do. We are also in a 
simultaneous training test and development phase.
    Chairman Levin. Finally for the admiral, you have 
experienced as the combatant commander responsible for the GMD 
system that currently provides protection of the Homeland 
against the threat of a limited missile attack from nations 
like North Korea and Iran. You also have experience working in 
a cooperative manner with Russian military officials.
    If we could work out something in a cooperative manner with 
Russia on missile defense, that would enhance our security 
against common missile threats from Iran. Would you agree?
    Admiral Winnefeld. Yes, sir, absolutely.
    Chairman Levin. Senator Lieberman?
    Senator Lieberman. Nothing more for me, thank you.
    Chairman Levin. Gentleman, we are all in your debt, and the 
Nation is in your debt. We are in debt to your families. We 
thank you and them profusely. We will do this confirmation just 
as speedily as we can, given the U.S. Senate. You never know 
for sure, but I think all of us are pretty darn confident that 
it will happen very quickly.
    Thank you. We will stand adjourned.
    Senator Lieberman. Hear, hear.
    [Whereupon, at 12:18 p.m., the committee adjourned.]

    [Prepared questions submitted to ADM James A. Winnefeld, 
Jr., USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Previously you have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination to be Commander of U.S. Northern 
Command (NORTHCOM).
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing?
    Answer. No. I have served in various joint capacities throughout my 
naval career and witnessed first-hand the tremendous advancements this 
landmark legislation has created, not only among our Nation's military 
and civilian leadership, but as a whole within the joint services and 
interagency environment. As such, I do not see a need to change the 
provisions of this legislation.
    Question. In your previous response to a question concerning 
whether you saw a need for modifications of Goldwater-Nichols in light 
of the changing environment, you indicated that you would ``take a hard 
look at ways NORTHCOM does business to determine if changes in the 
legislation are warranted.''
    In light of your experience as Commander of NORTHCOM do you see any 
need for modifications to Goldwater-Nichols? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. I do not believe changes to Goldwater-Nichols are necessary 
at this time. However, if confirmed, I will remain alert to 
opportunities or shortcomings that might indicate that changes to the 
legislation are warranted.

                       DUTIES AND QUALIFICATIONS

    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Vice Chairman of the Joint Chiefs of 
Staff as set forth in section 154 of title 10, U.S.C., and in 
regulations of the Department of Defense (DOD) pertaining to functions 
of the Vice Chairman of the Joint Chiefs of Staff?
    Answer. None at this time.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Vice Chairman of the 
Joint Chiefs of Staff?
    Answer. It has been my honor to serve for 33 years in a diverse set 
of positions that I believe have prepared me to serve as Vice Chairman 
of the Joint Chiefs of Staff. I have experience on the Joint Staff and 
Navy staff; served as a joint, combined, and combatant commander; and 
have worked closely with Congress on a variety of issues. My technical 
background should be useful in my role, if confirmed, as the Chairman 
of the Joint Requirements Oversight Council (JROC). As the Director for 
Strategic Plans and Policy on the Joint Staff, I gained insight into 
the conduct of joint, combined, and international operations. In my 
current position as Commander of NORTHCOM and the North American 
Aerospace Defense Command (NORAD), I command forces in the execution of 
Homeland defense and civil support operations. In this position, I have 
seen first-hand the importance of the Total Force in defending our 
Nation's interests at home and abroad.
    Question. Is there anything that you need to do to better prepare 
yourself to perform the duties of the Vice Chairman of the Joint Chiefs 
of Staff?
    Answer. Although there are always opportunities for additional 
learning in advance of assuming a new position, I feel well-prepared to 
serve as the Vice Chairman of the Joint Chiefs of Staff.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Vice Chairman of the Joint Chiefs of Staff to the following 
officials:
    The Secretary of Defense.
    Answer. The Vice Chairman performs the duties assigned to him and 
other such duties as may be assigned by the Chairman, with the approval 
of the Secretary of Defense. Additionally, in the absence or disability 
of the Chairman, the Vice Chairman acts as the Chairman and performs 
the duties of the Chairman until a successor is appointed or until the 
absence or disability ceases. These duties would include providing 
military advice to the Secretary of Defense. The Vice Chairman may also 
provide the Secretary of Defense advice upon the Secretary's request in 
his capacity as a military adviser.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has been delegated full 
power and authority to act for the Secretary of Defense on any matters 
upon which the Secretary is authorized to act. As such, the 
relationship of the Vice Chairman with the Deputy Secretary is similar 
to that with the Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties assigned to him as a 
member of the Joint Chiefs of Staff and such other duties as assigned 
by the Chairman, with the approval of the Secretary of Defense. When 
there is a vacancy in the office of the Chairman, or during the absence 
or disability of the Chairman, the Vice Chairman acts as Chairman and 
performs the duties of the Chairman until a successor is appointed or 
the absence or disability ceases. If confirmed, I look forward to a 
close working relationship with the Chairman.
    Question. The Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)).
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. With particular regard to the USD(AT&L), the Vice Chairman 
serves on many deliberative panels focused on resource decisions, 
including the Deputies Advisory Working Group as its Vice Chair and as 
Chairman of the JROC. If confirmed, I look forward to working very 
closely with the USD(AT&L) on continuing improvements to the 
requirements process and providing senior-level focus on key 
acquisition programs.
    Question. The Under Secretary of Defense (Comptroller) (USD(C)).
    Answer. I recognize the importance of the Vice Chairman working 
closely with the USD(C) in appropriately managing and providing 
oversight of the budgetary and fiscal processes of the Joint Staff 
required to achieve the budgetary goals prescribed by the Secretary of 
Defense and Chairman of the Joint Chiefs of Staff.
    Question. The Under Secretary of Defense for Policy (USD(P)).
    Answer. With regard to the duties of the Vice Chairman as they 
relate to the USD(P), the Vice Chairman co-chairs the Policy and 
Strategy Committee, serves as a member of the Counter-proliferation 
Council, represents military interest in Interagency Affairs, and 
provides oversight and direction on behalf of the Chairman in areas 
such as use allocation and use of military forces. The Vice Chairman 
and USD(P) serve together on the Deputies Committee. If confirmed, I 
plan to have frequent interaction with the USD(P).
    Question. The other Under Secretaries of Defense.
    Answer. Within their assigned areas, Under Secretaries exercise 
policy and oversight functions and interact frequently with the Joint 
Staff. They may issue instructions and directive-type memoranda that 
implement policy approved by the Secretary. These instructions and 
directives are applicable to all DOD components. In carrying out their 
responsibilities, and when directed by the President and Secretary of 
Defense, communications from the Under Secretaries to commanders of the 
unified and specified commands are transmitted through the Chairman of 
the Joint Chiefs of Staff. If confirmed, I will work closely with the 
Under Secretaries of Defense.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Director of Cost Assessment and Program Evaluation as a principal 
advisor to the Secretary of Defense and other senior officials of the 
DOD on cost assessment and program evaluation. If confirmed, I look 
forward to working closely with the Director under the auspices of the 
Vice Chairman's resourcing and requirements functions, as well as 
benefitting from the extensive and independent analysis provided by the 
Cost Assessment and Program Evaluation office towards making informed 
resourcing decisions.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks and 
Information Integration, all Assistant Secretaries of Defense are 
subordinate to one of the Under Secretaries of Defense. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of unified and specified commands are transmitted through 
the Chairman of the Joint Chiefs of Staff. If confirmed, I will work 
closely with the Assistant Secretaries in a manner similar to that of 
working with the Under Secretaries.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165 provides that, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces assigned to unified and specified commands.
    The Chairman, or Vice Chairman when directed or when acting as the 
Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the Military 
Departments conform with priorities in strategic plans and with the 
requirements of the combatant commanders. The Vice Chairman has 
numerous interactions with the Service Secretaries in the various 
management forums within the Department. Finally, in his role as the 
Chairman of the JROC, the Vice Chairman has considerable interaction 
with the Service Secretaries' acquisition staffs. If confirmed, I look 
forward to a close and productive working relationship with the Service 
Secretaries and their staffs.
    Question. The Chiefs of Staff of the Services.
    Answer. The Service Chiefs serve two significant roles. First, they 
are responsible for the organization, manning, training, and equipping 
of their respective Services. Without the full support and cooperation 
of the Service Chiefs, no combatant commander can be ensured of the 
readiness of his assigned forces for missions directed by the President 
and Secretary of Defense. Second, as members of the Joint Chiefs of 
Staff, they are advisors to the Chairman and the Secretary of Defense 
as the senior uniformed leaders of their respective Services. The 
Service vice chiefs play a key role on the JROC, chaired by the Vice 
Chairman. If confirmed, I will work closely with the Service chiefs and 
their vice chiefs to fulfill the combatant commanders' warfighting and 
operational requirements and on other relevant policy matters.
    Question. The Combatant Commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. The Chairman provides a vital 
link between the combatant commanders and other elements of DOD and, as 
directed by the President, may serve as the means of communication 
between the combatant commanders and the President or Secretary of 
Defense. When there is a vacancy in the office of Chairman or in the 
absence or disability of the Chairman, the Vice Chairman acts as 
Chairman when interacting with the combatant commanders. Having served 
as a combatant commander, I have clear insight into the capabilities 
and limitations of combatant command (COCOM) staffs. If confirmed, I 
will work closely with the combatant commanders to enable their 
warfighting capabilities and provide other support as required.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. What are the major challenges that you see facing the 
Vice Chairman of the Joint Chiefs of Staff?
    Answer. The principal challenge I will face, if confirmed, will be 
in assisting the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff in formulating their recommendations to the President 
regarding balancing the national security imperative of regaining our 
fiscal solvency against the national defense imperatives of winning our 
current fights and maintaining our ability to deter or defeat a broad 
spectrum of potential threats to our Nation's vital and important 
interests.
    Our most important near term task is to ensure our service men and 
women deployed and in combat overseas--and their families and those who 
return wounded, ill, or injured--are supported to the best of our 
ability as a nation.
    The spectrum of potential threats against which we must defend 
within an increasingly constrained budget environment includes:

        <bullet> Violent extremism, which is the only threat that 
        currently possesses both the capability and active intent to 
        harm the United States and our allies and friends;
        <bullet> Regional instability, including the uncertainty caused 
        by recent turmoil in the Arab world, that could threaten the 
        United States' or allies' vital or important interests or that 
        poses a grave threat of human disaster;
        <bullet> Self-alienated nations whose leaders view acquisition 
        of weapons of mass destruction as an insurance policy for 
        preserving their status and increasing their regional 
        influence;
        <bullet> Powerful states, to include those with strategic 
        offensive capability, that could threaten the survival or vital 
        interests of the United States or our allies;
        <bullet> The growing threat of cyber attack against defense or 
        civilian infrastructure posed by individuals and nations;
        <bullet> Transnational criminal organizations (TCO) that 
        produce serious corrosive effects within the United States and 
        among our friends and allies; and
        <bullet> The constant threat of natural and manmade disasters.

    We must also work to ensure the American people maintain their 
connection to and support for our Armed Forces.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Secretary, the 
Chairman, the other Joint Chiefs, the combatant commanders, and other 
key national security officials to ensure our national defense remains 
strong by:

        <bullet> Ensuring our service men and women in combat are fully 
        and properly supported;
        <bullet> Making appropriate recommendations when the use of 
        U.S. military force is being contemplated;
        <bullet> Contributing to policy discussions regarding the 
        trajectories of threat capabilities and capacities, their 
        implications for U.S. vital and important interests, and the 
        relative priority, cost, posture, and temporal aspects of 
        ensuring U.S. capabilities and capacities are able to defeat 
        them;
        <bullet> Continuing ongoing efforts to improve the requirements 
        system--ensuring the combatant commanders are properly 
        represented therein, among other imperatives--as well as 
        ensuring the system is well-synchronized with budgeting and 
        acquisition processes;
        <bullet> Continuing the search for greater efficiency and 
        effectiveness in the way we do business within the Department;
        <bullet> Working collegially within the U.S. interagency to 
        synchronize our efforts to advance the security interests of 
        our Nation;
        <bullet> Strengthening our relationships with our allies and 
        friends; and
        <bullet> Ensuring our families and wounded warriors are 
        properly cared for.

    As always, the national security leadership will need to make 
difficult choices. Thus, I intend to contribute to the collaborative 
and collegial approach that will be required--among what I view to be 
an exceptional group of Joint Chiefs, combatant commanders, and other 
stakeholders in the executive branch and Congress--to accomplish these 
difficult tasks in an increasingly constrained budget environment.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. As the Vice Chairman of the Joint Chiefs of Staff, if 
confirmed, you would be the Chairman of the JROC. The JROC has the 
responsibility to review and validate Service requirements.
    Are there any recommendations that you would make to modify the 
JROC or its authority or the requirements process?
    Answer. If confirmed, I will continue on the current trend in line 
with recent changes to the National Defense Authorization Act (NDAA) 
for Fiscal Year 2011 of empowering the combatant commanders in 
providing the warfighter a clear voice in the requirements process. 
Additionally, I would continue to streamline the Joint Capabilities 
Integration and Development System (JCIDS) to provide more informed 
decisionmaking of the JROC. Currently there are two requirements 
processes: Joint Urgent Operational Needs (JUONs) and JCIDS. The JUONs 
process provides the warfighter in combat a quick way to procure a 
system that prevents loss of life and critical mission failure due to 
direct enemy action. JCIDS is utilized for all other Joint acquisition 
systems--both long-term large and near-term small programs use the same 
requirements process. I believe we need to develop a system that better 
addresses the continuum of requirements and acquisition programs. It is 
my understanding that such a system is currently being designed, and if 
confirmed, I will continue that effort.
    Question. During the confirmation of General Cartwright for the 
position of Vice Chairman, the committee asked him a variety of 
questions about problems, challenges, and recommendations for 
improvements in the requirements process and the workings of the JROC. 
General Cartwright emphasized his view of the importance of enhancing 
the role of the combatant commanders in the JROC beyond what was 
mandated in the Weapons Systems Acquisition Reform Act (WSARA) of 2009. 
Specifically, he recommended that the combatant commanders become 
members of the JROC, along with representatives from the offices of 
USD(P), USD(AT&L), and USD(C). He also suggested that the Vice Chairman 
be authorized to delegate authority to functional combatant commanders 
to approve certain specific types of requirements. Section 841 of the 
Ike Skelton NDAA for Fiscal Year 2011 makes changes to the JROC 
authorizing statute, based on General Cartwright's recommendations.
    What are your views on General Cartwright's specific 
recommendations?
    Answer. I fully support General Cartwright's specific 
recommendations that have been written into section 841 of the NDAA for 
Fiscal Year 2011.
    Question. What are your views on the changes made by section 841?
    Answer. As a currently-serving combatant commander, I am pleased 
with General Cartwright's recommendations that were written into 
section 841 to empower the combatant commanders in the requirements 
process. If confirmed, I will investigate whether there is even more we 
can do in this regard, subject to the capacity and expertise of the 
combatant commander staffs to participate.
    Question. What is your understanding of the status of proposed 
guidance to implement the changes made by section 841?
    Answer. My understanding is that these changes have been fully 
implemented. On 26 April 2011, I sat on the JROC as a voting member 
specifically for an Initial Capability Document briefing in which my 
COCOM had specific interest.
    Question. What are your views on the proposed guidance?
    Answer. The combatant commander now has a clear voice in the 
requirements process with his vote on the JROC, though I acknowledge 
that it is not always easy for combatant commanders to participate. 
Also, adding the additional advisors to the JROC provides a wide 
breadth of expertise and experience. However, I believe we must 
continue to pursue ways to further include combatant commanders in the 
requirements process.
    Question. General Cartwright was also asked about the role of the 
requirements process in the acquisition process after requirements have 
been initially approved and a program begins engineering and 
manufacturing development. General Cartwright noted that in 2007, the 
JROC established what he called a ``trip-wire'' process to ``bring 
troubled programs back to the JROC for a review and to consider 
performance trade-offs to mitigate further cost growth and/or schedule 
delays before the program faced a Nunn-McCurdy review.''
    To your knowledge, has this review mechanism been regularly 
employed on large programs that have experienced significant cost 
growth and schedule delays?
    Answer. Yes, the first ``trip-wire'' review was conducted in 2007 
and this mechanism has been used regularly for several defense 
programs. I personally observed, while attending a JROC meeting as the 
NORTHCOM Commander, this process in action in scrutinizing a troubled 
program. If confirmed, I will continue this practice.
    Question. Has the JROC altered requirements, either for performance 
or procurement quantities, as a result of such reviews?
    Answer. My understanding is that the ``trip-wire'' review forces an 
assessment of the relationship between requirements and program cost 
drivers, allowing the JROC to weigh the cost benefit of reducing a 
requirement to control cost growth. It is a maturing process as cited 
in a recent Government Accountability Office (GAO) report. My 
understanding is that a recent example where the JROC altered 
requirements is the Joint Tactical Radio System.
    Question. WSARA required the Secretary of Defense to ensure that 
trade-off analyses are conducted on cost, schedule, and performance as 
part of the requirements development and approval process. Such 
analyses enhance the Department's understanding of what performance 
factors are the critical ones driving costs and schedules.
    In your view does the Joint Staff have the operations research 
expertise to determine where the cost ``knees in the curve'' lie for 
weapons systems performance?
    Answer. Currently the Joint Staff relies on CAPE as an advisor to 
the JROC for their operations research expertise to determine where the 
cost ``knees in the curve'' lie for weapons systems performance. The 
Joint Staff then utilizes that data to determine proper tradeoffs 
regarding Key Performance Parameters (KPP). The ongoing review of JCIDS 
is addressing this and will provide recommendations on increased Joint 
Staff analytical expertise on cost, schedule, and performance 
considerations.
    Question. In your view has the Department effectively integrated 
the operations research and cost estimating resources across the Joint 
Staff, the Office of Cost Analysis and Program Evaluation (CAPE), and 
the Office of the Under Secretary for Acquisition, Technology, and 
Logistics (OSD(AT&L)) to conduct these trade-off analyses?
    Answer. It is my understanding that synergistic staffing between 
the Joint Staff, Office of the Secretary of Defense (OSD) CAPE, and 
OSD(AT&L) has been effective.
    Question. What is your view of the modifications to the JROC 
process made by the Weapon Systems Acquisition Reform Act of 2009?
    Answer. Implementation of a ``trip-wire'' process helps inform the 
JROC of critical cost growth of Major Defense Acquisition Programs. 
This enables the JROC to properly inform the Secretary of Defense of 
potential Critical Breaches. When there is a breach, these programs 
must report to the JROC for validation and to review program cost, 
schedule, and performance. I fully support these modifications, which 
have been codified into the JROC process.
    Question. What additional steps do you believe that Congress or the 
Department should take to ensure that trade-offs between cost, 
schedule, and performance objectives for major weapon systems are made 
at an appropriately early point in the acquisition process?
    Answer. It is my observation that the Department is already moving 
to make assessments of cost, performance, and technical readiness of 
weapon systems earlier in the acquisition process. I believe that the 
JROC should work to synchronize its decision points to better inform 
the acquisition milestone decisions. One course being considered is for 
the JROC to review Analysis of Alternatives (AOA) from major defense 
acquisition programs and provide advice to the milestone decision 
authority in support of milestone A. This also addresses a key 
recommendation made in a recent GAO report.
    Question. Are there any other recommendations that you would make 
to modify the JROC or its authority or the requirements process?
    Answer. I believe the changes in the Ike Skelton NDAA for Fiscal 
Year 2011 captured several positive changes to the JROC and should be 
allowed to mature for a period of time to assess the implementation of 
those changes. If confirmed, I will remain alert to opportunities to 
improve this process.
    Question. How would you assess the effectiveness of the JROC in the 
DOD acquisition process?
    Answer. I believe the JROC is an effective partner with OSD in the 
acquisition process. Through participation in many common forums, such 
as the Defense Acquisition Board and the Deputies Advisory Working 
Group, JROC members are able to identify disconnects early and make the 
necessary course corrections.
    Question. What is your vision for the role and priorities of the 
JROC in the future?
    Answer. First and foremost, if confirmed, I will continue to ensure 
the warfighter's voice is heard and supported in the requirements 
process. Additionally, as we move into a period where it appears there 
will be great downward pressure on the defense budget, I believe the 
JROC and joint requirements process will need to play a key role in 
prioritizing what capabilities are most important to the Department. 
This will enable the JROC to make informed decisions to ensure the 
Department's most important warfighting capabilities remain intact. I 
also believe we must do a better job of controlling requirements creep 
within programs, and that tight synchronization between requirements, 
budgeting, and acquisition will become even more important in the 
coming years.
    Question. Do you believe the JROC process is sufficient to 
understand and identify where there are opportunities for multi-Service 
collaboration or where programs could or should be modified to take 
advantage of related acquisition programs?
    Answer. Recent implementations of the NDAA for Fiscal Year 2011 
have provided a broader look into current programs and future 
collaboration, not only among Services but between COCOMs. There is 
always room for improvement, but generally I believe the JROC is 
effective in ensuring collaboration among the major stakeholders.
    Question. What principles guide your approach to inviting, and 
helping ensure the sufficient participation of other stakeholders in 
the JROC?
    Answer. I believe transparency and honesty are crucial to the 
effective determination of joint requirements in order to meet 
warfighter needs. If confirmed, I will fully support the 
recommendations made by General Cartwright, to include advice from any 
organization with a stake in the requirements being validated.

         JOINT CAPABILITIES INTEGRATION AND DEVELOPMENT SYSTEMS

    Question. There have been longstanding concerns about the lack of 
flexibility and responsiveness within DOD's complex process of 
addressing the needs of the warfighters. Recently, GAO reported that 
the JCIDS has evolved to provide many opportunities for combatant 
commanders to express their capability gaps, but that combatant 
commanders are frustrated with the lengthy, staff intensive advisory 
process that results in investments driven by Service priorities.
    As a combatant commander, what is your perspective on the 
responsiveness of the JCIDS process in addressing joint capabilities 
needs?
    Answer. JCIDS is a deliberate requirements process, designed to be 
analytical to ensure Service proposals are aligned with Joint Concepts 
of Operations and strategic guidance. It is also designed to ensure the 
Department complies with applicable laws by fully supporting 
acquisition and budgetary processes.
    As concept of operations and missions have rapidly evolved to 
support the current security environment, and as acquisition and budget 
processes were adjusted to be more responsive to urgent warfighter 
needs, a parallel requirements process (supporting acquisition of 
JUONs) was created to ensure joint needs were met in the short term 
(preventing loss of life or mission failure).
    I have experienced frustration as a combatant commander in being 
caught between these two processes. However, the Joint Staff in this 
case proved to be very responsive in accelerating the JCIDS process to 
meet my needs, though final resolution of my requirement is pending. As 
stated above, the Joint Staff, with inputs from all COCOMs and 
Services, continues to make adjustments to both processes based on 
inputs from users, lessons learned, and changes in law, to ensure 
responsiveness to critical joint capabilities needs. I believe the 
ongoing JCIDS review will provide solid recommendations to improve the 
responsiveness and decision support to the JROC, COCOMs, Services, and 
Defense Agencies.
    Question. What level of involvement in the joint requirements 
process and the JROC do you believe is appropriate for the COCOMs?
    Answer. COCOMs continue to play an important role in the 
requirements process. They have always been able to act as a sponsor, 
identifying capability gaps for consideration by the JROC for 
validation. COCOMs have always had an open invitation to attend and 
participate in any JROC meeting, to ensure their equity was considered 
on any subject.
    Since the changes mandated by the Weapon System Acquisition Reform 
Act, and the changes in the structure of the JROC mandated by the 2011 
NDAA, the COCOMs' role on the JROC is now equivalent to that of a 
Service. Because of this, the COCOM voice is able to be heard in all 
levels of the joint requirements process. The expansion of the COCOM 
role, and the active participation of COCOM commanders in the JROC, is 
completely appropriate, and I applaud the work General Cartwright has 
done to bring this to fruition.
    However, I believe the COCOMs still have work to do to grow into 
this role, as their limited capacity and expertise, as well as limited 
senior officer bandwidth, makes it challenging to fully participate in 
this process. If confirmed, I will search for ways to not only provide 
the rule set that permits COCOM participation, but to provide the means 
for them to do it. I believe this is the next step in improving this 
process.
    Question. Section 862 of the Ike Skelton NDAA for Fiscal Year 2011 
directs the GAO to evaluate the advantages and disadvantages of 
designating a COCOM to provide a Joint Evaluation Task Force to 
participate in the development of a material solution for a new 
requirements document.
    Do you think that such a Joint Evaluation Task Force would improve 
the dialogue between COCOMs and the Services' acquisition communities? 
Why or why not?
    Answer. I believe that the current requirements process already 
provides a mechanism for joint dialogue between COCOMs and acquisition 
communities. The challenge is not in establishing a process, it is in 
enabling COCOMs to participate in it. My concern is that establishment 
of a Joint Evaluation Task Force may result in an additional layer of 
coordination and staffing between the existing requirements and 
acquisition processes, further delaying the identification of 
capability gaps and the subsequent fielding of systems addressing those 
gaps.
    Question. What additional steps do you think need to be taken to 
improve coordination and better integrate the warfighters into a 
requirements development process that is controlled by the Services?
    The process known as the Senior Warfighter Forum (SWarF), led by 
the COCOM Vice Commanders, provides a consolidated COCOM voice in 
prioritizing the attributes of capability needs in identified mission 
areas. An additional step that is being recommended as part of the 
ongoing JCIDS review is to formalize the SWarF process to better inform 
JROC decisionmaking to further integrate and coordinate requirements 
efforts of services and COCOMs.
    Question. As Vice Chairman of the Joint Chiefs of Staff, General 
Cartwright directed the Joint Staff to begin an effort to overhaul the 
JCIDS process to make it more responsive to warfighter needs, have a 
stronger voice, and to develop a methodology for setting investment 
priorities across the Department.
    Do you think that JCIDS needs to be changed? If so, what are your 
views on the how it could be improved to make the process more 
responsive to users' needs while efficiently investing resources in a 
fiscally constrained budget environment?
    Answer. Yes, JCIDS continues to change as the agencies that support 
it (Services, COCOMs, Joint Staff), and that it supports (acquisition 
and budgeting) continue to evolve. The work that has been going on 
since last summer has produced several significant recommendations to 
revise the joint requirements process. These recommendations take into 
account recent efficiencies gained by the disestablishment of U.S. 
Joint Forces Command, the Joint Staff J-6, and the office of the 
Assistant Secretary of Defense for Network Integration and Information 
(ASD/NII), as well as the changes ongoing in the acquisition community 
with the revision of the DOD Directive 5000.02.
    The fundamental idea behind JCIDS--that is, to assist the JROC in 
identifying and assessing joint military capability needs--will not 
change. The process used by the Joint Staff, and the content of the 
submissions, will move away from a document-centric toward a data-
centric model, with more time spent on analysis of the risks associated 
with cost, schedule, and performance considerations to meet the urgency 
of the requirement. Staffing time and redundancy will be significantly 
reduced. It will also enable the JROC to make a better informed 
decision on the validation and prioritization of joint military 
requirements.
    Question. How do you envision your role, if confirmed, as the 
Chairman of the JROC?
    Answer. The Vice Chairman, as JROC Chairman, co-chairman of the 
Deputies Advisory Working Group, and a member of the Defense 
Acquisition Board, is the only person who sits at the intersection of 
both requirements and acquisition processes at the executive level. The 
JROC controls the requirements process through exercise of their 
validation authority. The JROC Chairman, therefore, must ensure the 
needs of the warfighter are met within the fiscal constraints placed on 
the Department.
    Question. What are your thoughts on the need for a joint force 
model to guide the development of requirements by each of the Services 
and the fielding of capabilities?
    Answer. Our move from threat-based planning to capabilities-based 
planning has enabled a joint assessment of capabilities that are 
interoperable and supportable across the joint force. Requirements are 
based on strategic guidance, which is constantly being revised to meet 
the current and anticipated threat. Services, as the principal sponsors 
of requirement submissions, identify capability gaps that are aligned 
with strategic guidance. The current capabilities-based planning model 
is sound, yet is it prudent that we continue to review the model to 
ensure our highest priority joint military requirements are being 
fielded to meet the needs of our joint force.
    Question. The requirements development process is not a stand-alone 
process, but instead is required to work collaboratively with the 
acquisition and budgeting processes.
    What steps are needed to better align the requirements development 
process with the acquisition and budgeting processes to make for a more 
efficient and effective process for delivering capabilities?
    Answer. It is my understanding that the ongoing JCIDS review 
evaluated several areas for improvement, and the Joint Staff has been 
working together with the Office of the Secretary of Defense for 
Acquisition, Technology, and Logistics (OSD/AT&L) to implement these 
improvements.
    The implementation of expanded requirements manager certification 
training, through courses designed and conducted by the Defense 
Acquisition University, ensures responsible managers from both the 
requirements and acquisition communities have a common understanding of 
the needs of both processes, an awareness of the touch points between 
the two communities, and can work together effectively.
    The move to a data-centric requirements generation model, partly 
facilitated by the creation of Capability Development Tracking and 
Management software, was mandated on 30 June of this year. This has the 
potential to provide acquisition communities greater visibility of 
requirements earlier in the process.
    Another recommendation from the JCIDS review is for Joint Staff 
requirements experts to advise the Director of Cost Assessment and 
Program Evaluation (OSD/CAPE) and the OSD/AT&L by conducting a Joint 
Staff review of the results of the AOAs to better inform the Milestone 
``A'' acquisition decision. This will facilitate a better competitive 
prototyping strategy and allow a joint assessment of AOA results prior 
to the establishment of KPP.
    Question. How soon do you anticipate that reforms to the JCIDS 
could be implemented?
    Answer. It is my understanding that some improvements to JCIDS have 
already been implemented and final recommendations will be approved in 
the coming months. We anticipate implementation of major reforms by the 
end of this year.
    Question. Do you anticipate that the drawdown of U.S. combat forces 
in Iraq and Afghanistan will affect efforts to overhaul the system, and 
if so, how?
    Answer. I do not anticipate that changes in existing force 
deployment levels will significantly affect the reforms to the joint 
military requirements process.
             acquisition reform and acquisition management
    Question. What is your view of the changes made by the Weapon 
Systems Acquisition Reform Act of 2009?
    Answer. I fully support the changes made in the Weapons Systems 
Acquisition Reform Act, and if confirmed, will work to implement any 
necessary changes in the requirements process.
    Question. What role have you played, and do you expect to play, if 
confirmed, in the implementation of that Act?
    Answer. I have played no direct role in the act's implementation in 
the billets I have held since its passage. However, I have read the act 
and fully support it--if confirmed, I will work within the authority 
vested in the Chairman of the JROC to implement any changes to the 
requirements process necessary to support implementation of the act.
    Question. What role, if any, do you believe the JROC should play in 
the oversight and management of acquisition programs after requirements 
have been established?
    Answer. I believe the JROC should continue to monitor acquisition 
program execution to identify areas where requirements may drive cost 
growth and schedule delays. The JROC should play a key role in 
determining the appropriate balance between the performance of weapons 
systems and the resources needed to develop and procure them.
    Question. What role if, any, do you believe the JROC should play in 
reviewing the progress of major defense acquisition programs or other 
acquisition programs?
    Answer. I believe the JROC should continue to review the progress 
of major defense acquisition programs and other programs of joint 
interest to fulfill its role in achieving appropriate balance between 
capability, schedule, and cost.
    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the Joint Chiefs of Staff in the 
requirements determination, resource allocation, or acquisition 
management processes?
    Answer. Not at this time.
    Question. What is your view of the role played by Configuration 
Steering Boards in preventing cost growth due to requirements creep?
    Answer. I believe the Configuration Steering Boards are still 
maturing, but are increasingly providing a forum that promotes control 
of requirements and cost growth.
    Question. What do you see as the proper relationship between 
Configuration Steering Boards and the JROC in managing requirements for 
acquisition programs?
    Answer. In my view, when the Configuration Steering Board 
recommends adjusting requirements in order to mitigate cost or schedule 
growth, the requirements community should consider the impact of the 
adjustment and provide guidance in support of the recommendations that 
balances the priority of the requirement with the program cost and 
schedule.
    Question. What is your view of the Nunn-McCurdy requirements for 
Major Defense Acquisition Programs that fail to meet cost, schedule, 
and performance objectives?
    Answer. I support the Nunn-McCurdy requirements. I believe they 
force the Department to take a critical look at poor performing 
programs and reassess the path to achieving valid warfighter needs.
    Question. What do you see as the proper relationship between the 
JROC and those DOD officials charged with implementing the Nunn-McCurdy 
requirements?
    Answer. I believe the role of the JROC as military advisor to the 
Milestone Decision Authority is appropriate when assessing Nunn-McCurdy 
breaches.

                         URGENT NEEDS PROCESSES

    Question. Section 804 of the Ike Skelton NDAA for Fiscal Year 2011 
requires DOD to develop a comprehensive approach for managing all of 
its various urgent needs processes that would, among other things, 
define roles, responsibilities, and authorities, and designate a 
senior-level focal point for urgent needs.
    Do you agree that DOD should develop DOD-wide guidance that better 
defines roles, responsibilities, and authorities and designates a 
senior-level focal point for urgent needs?
    Answer. Yes, and I am aware that efforts are underway to address 
those concerns. The Department has recently made positive steps in 
addressing JUONs with the establishment of the warfighter Senior 
Integration Group (SIG) co-chaired by the USD(AT&L) and the Joint Staff 
J3. This group is providing a streamlined and tightly integrated 
approach to expedite the resolution of issues associated with rapid 
fielding to include requirements, funding, acquisition, sustainment, 
and performance. The JUONs process has been very successful in recent 
years in providing much needed capability to our warfighters, and the 
process is continuously being improved.
    Question. In your view, what specific steps should the Department 
take to better manage the joint urgent needs process?
    Answer. I believe the Department should continue to streamline the 
urgent needs process to quickly respond to urgent needs. Establishment 
of the SIG is a positive step and Joint Staff refinements to the 
validation process will continue to enhance the Department's support to 
the warfighter.
    I also believe we should continue to build a process that bridges 
the gap between urgent needs and the formal JCIDS process. Many 
requirements are not urgent enough to require the full court press of a 
JUONs process, but should be subject to the same process that 
establishes requirements for and procures a large weapons system.
    Question. What is your sense of where the DOD might consolidate 
urgent needs entities and/or processes and how cost savings could be 
achieved through such consolidation?
    Answer. I believe that the warfighter SIG has the potential to 
become DOD's permanent oversight body of Urgent Operational Needs 
(UON). This has potential for significant cost savings since the SIG 
can monitor the Services and various agencies to minimize the 
duplication of effort on urgent needs.
    Question. Do you believe that the Joint Staff should take steps to 
integrate the Joint Urgent Needs process with the individual Services' 
processes? If so, please explain?
    Answer. I believe it is important that the distinction between 
Service UONs and JUONs remain in place so that the combatant commander 
has an effective channel to ensure joint warfighter needs are promptly 
addressed. Execution of Service UONs and JUONs are already largely an 
integrated process as, both requirements generally flow to directorates 
with the requisite expertise to resolve all urgent needs.

                        NUCLEAR WEAPONS COUNCIL

    Question. If confirmed as Vice Chairman of the Joint Chiefs of 
Staff, you would serve as a member of the Nuclear Weapons Council 
(NWC).
    What would your priorities be for the NWC?
    Answer. Sustaining a safe, secure, and effective nuclear arsenal is 
a key priority in the 2010 Nuclear Posture Review (NPR), central to the 
responsibilities of the NWC. If confirmed, I will work with the members 
to review the NWC work plan and execute it in accordance with the 
President's guidance in the NPR.
    I will also work with the members of the NWC to pursue sound 
Stockpile Management for extending the life of U.S. nuclear weapons, 
ensuring a safe, secure, and effective deterrent.
    Additionally, I will work with NWC members to ensure the 
modernization of our aging nuclear facilities and investment in human 
capital, to enable a substantial reduction to the number of nuclear 
weapons that need to be retained as a hedge against technical or 
geopolitical surprise, to accelerate dismantlement of retired warheads, 
and to improve our understanding of foreign nuclear weapons activities.
    Question. What changes if any would you recommend to the 
organization, structure, or function of the NWC?
    Answer. U.S.C., title 10, section 179, sets forth the organization, 
structure and function of the NWC. I have no recommendations at this 
time. However, if confirmed, I will work with the NWC chairman and 
members to assess the organization, structure and function of the NWC, 
and where warranted, provide recommendations for change to increase 
effectiveness and value in support of the nuclear mission for national 
security.

        LEGISLATIVE GAPS IN DEFENSE SUPPORT TO CIVIL AUTHORITIES

    Question. The Department continues to lack statutory authority to 
order Army, Navy, Air Force, and Marine Corps Reserve personnel to 
Active Duty in order to provide support in response to a natural 
disaster. Despite determined efforts by you, as Commander, NORTHCOM, 
and the Council of Governors to address concerns of State Governors 
about operational control of Federal forces during naturally causes 
emergencies, no resolution that would facilitate a legislative change 
has been achieved.
    From a contingency planning perspective, how necessary, in your 
view, is modification of title 10, U.S.C., to allow reservists 
involuntarily to be called to Active Duty to respond to natural 
disasters?
    Answer. I believe it is important for DOD to be able to plan for 
and access title 10 Federal Reserve capabilities to ensure adequate 
speed, capability, and capacity in responding to natural disasters in 
support of the American people. Title 10 Federal Reserve Forces possess 
significant capabilities to mitigate the effects of major disasters or 
emergencies, whether natural or manmade. Federal Reserve Forces are 
geographically dispersed throughout the Nation and are often located 
closer to the incident site than Active-Duty Forces. A high percentage 
of skill sets and capabilities needed during response to natural 
disaster is contained in the Federal Reserves.
    Question. What is the current status of negotiations with State 
Governors, and what unresolved issues remain that stand in the way of 
an agreement?
    Answer. In the 2009 NDAA, Congress recommended that DOD ``engage 
with the community of governors to work out an understanding of unity 
of effort during domestic terrorist events and public emergencies.'' 
The President established a Council of Governors in 2010 to address 
this and other issues. The Council has already made important progress 
in approving a concept that provides dual chains of command to ensure 
unity of effort in response to disasters.
    Proposed legislation to address access to the Federal Reserve 
Forces has been a priority topic of discussion in the Council over the 
past year. The members of the Council have worked hard to ensure we get 
the language right.
    Based upon the 17 July 2011 Council of Governors meeting that I 
attended in Salt Lake City, I believe there are no more unresolved 
issues. My understanding is that there is now full concurrence among 
the Council, the Department of Homeland Security, and the DOD for the 
National Governors Association regarding language to recommend to 
Congress for inclusion in NDAA for Fiscal Year 2012.
    Question. If confirmed, what role, if any, would you play in 
ensuring the Department addresses what is clearly a significant 
vulnerability?
    Answer. If confirmed, I look forward to the opportunity to continue 
to support the Council of Governors and the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs as they 
finalize work on a legislative proposal to gain access to Federal 
Reserve Forces for domestic incidents that can increase the speed of 
response and deliver necessary capabilities to our citizens in need. I 
believe we are close to positive resolution of this matter.

                       HOMOSEXUAL CONDUCT POLICY

    Question. The ``Don't Ask, Don't Tell Repeal Act of 2010,'' enacted 
on December 22, 2010, provides for the repeal of the current DOD policy 
concerning homosexuality in the Armed Forces, to be effective 60 days 
after the Secretary of Defense has received the DOD's comprehensive 
review on the implementation of such repeal, and the President, 
Secretary, and Chairman of the Joint Chiefs of Staff certify to the 
congressional defense committees that they have considered the report 
and proposed plan of action, that DOD has prepared the necessary 
policies and regulations to exercise the discretion provided by such 
repeal, and that implementation of such policies and regulations is 
consistent with the standards of military readiness and effectiveness, 
unit cohesion, and military recruiting and retention.
    What is your view on repealing the current DOD policy?
    Answer. I support repeal of the Don't Ask, Don't Tell policy in the 
manner that the repeal has been crafted. I believe the Armed Forces are 
prepared to implement the repeal of 10 U.S.C. 654, consistent with the 
Don't Ask, Don't Tell Repeal Act of 2010 (Public Law 111-321). I have 
expressed to the Chairman of the Joint Chiefs of Staff in writing that 
NORTHCOM is prepared for implementation.
    Question. What effect do you anticipate the repeal will have on 
readiness and discipline in the Armed Forces?
    Answer. We have the policy and regulations needed for 
implementation, consistent with standards of military readiness, 
military effectiveness, unit cohesion, and recruiting and retention. I 
am confident that we are ready now to affect repeal while sustaining 
military effectiveness, even in our current conflicts.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
combat areas of operation and at home stations are still being 
reported. Victims and their advocates claim that they are victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate treatment for the victim. Despite the leaders' commitment 
to ``zero tolerance,'' the view is held by some that the Department has 
not done enough to provide the resources and policies needed to prevent 
sexual assaults.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. I believe current policies and programs designed to address 
sexual assault have allowed the Department to both care for victims and 
hold offenders accountable. That said, I believe that, until no sexual 
assaults occur within our forces, we should continue to look for ways 
to improve the system.
    Question. What problems, if any, are you aware of in the manner in 
which confidential reporting procedure has been put into operation?
    Answer. I am not personally aware of any problems in the 
implementation of the restricted reporting option. Confidential 
reporting allows victims who wish to remain anonymous to obtain the 
support they need following an assault. I will remain alert and 
receptive to reported flaws in the program and support taking prompt 
action to improve the system.
    Question. What is your view of the steps the Services (including 
the Reserve components) have taken to prevent and respond to sexual 
assaults in combat zones, including assaults against contractor 
personnel and assaults by foreign nationals?
    Answer. No sexual assault is acceptable anywhere in our Armed 
Forces, whether deployed or not. I believe the Services have procedures 
in place to address the challenges of preventing and responding to 
sexual assaults in an operational environment to include working with 
host governments and our international partners. Every effort is made 
to take care of all victims and hold offenders accountable. However, as 
I stated above, until no sexual assaults occur within our Armed Forces, 
we should continue to look for ways to improve prevention and response.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. Our investigators and first responders are well trained. 
All Services recently enhanced their resources for investigating and 
prosecuting sexual assault cases.
    Question. What do you see as the most difficult problems commanders 
must contend with in holding assailants accountable for their acts?
    Answer. I believe building and maintaining victim confidence to 
assist in the investigation can often be difficult for commanders 
trying to take appropriate command action against assailants. 
Commanders are also frequently confronted with the challenge that 
alleged sexual assaults are also often accompanied by other lesser 
misconduct on the part of both the victim and the alleged assailant 
that is easier to prove than sexual assault.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. Senior leadership focus on this important topic is 
critical. If confirmed, I will work closely with the Chiefs to monitor 
progress in eradicating sexual assault in the military.

                        ACTIVE-DUTY END STRENGTH

    Question. Former Secretary of Defense Gates announced this year 
that the Army would reduce its end strength by 22,000 through fiscal 
year 2013, including 7,400 in fiscal year 2012. This end strength was 
part of the temporary increase authorized in 2009 and was intended to 
more fully fill out the existing force structure. Beginning in fiscal 
year 2015, depending on conditions on the ground, the Army and Marine 
Corps plan to reduce their permanent end strength and force structure 
by 27,000 soldiers and at least 15,000 marines, respectively.
    Does the foregoing statement accurately reflect current planning?
    Answer. The statement appears to be consistent with remarks made by 
Secretary Gates. It is also my understanding that the Army and the 
Marine Corps need a bit more time to confirm these projected personnel 
numbers and the timeframe for their implementation, particularly for 
the out-years.
    Question. How would you describe the risk in adhering to these 
reductions?
    Answer. Given current trends in Iraq and Afghanistan, including 
reduced demand for ground forces in Iraq, the risk is manageable, but 
dynamic. This process will require careful monitoring and potential 
management flexibility during the drawdown.
    Question. Can the Army accelerate to 2012 more of its planned 
reduction in its temporary overstrength?
    Answer. Though I currently do not have the information I need in 
order to reach a firm conclusion, I believe it would be difficult to 
accelerate a reduction in ground forces prior to concluding the Afghan 
campaign. Accelerated reductions would likely increase the stress on 
the force and could introduce unacceptable risk to other COCOMs that 
have ground force requirements. If confirmed, I will pay close 
attention to the pace at which force structure changes are planned for 
our ground forces.
    Question. What are the assumptions regarding ``conditions on the 
ground'' that will allow for the planned reductions beginning in 2015 
to occur on time?
    Answer. In general, I would expect such a decision to depend to a 
significant degree on our assessment of progress against security 
objectives in specific theaters and the elements of key strategic 
decisions regarding potential future contingencies as 2015 approaches. 
I would solicit the advice of our combatant commanders and DOD's senior 
military and civilian leaders to inform my recommendations on such 
decisions.
    Question. The Navy and Air Force, while not currently facing the 
same level of planned reductions in their Active Duty end strengths in 
the coming years, are concerned about exceeding their end strength 
authorizations due to higher than expected retention. Consequently, 
both Services are seeking force management tools that require 
congressional authorization and relying on involuntary separations to 
reduce their forces.
    What tools do the Department and the Services need to get down to 
authorized strengths by the end of this fiscal year, and which of these 
require congressional authorization?
    Answer. I understand that some of the authorities used during 
previous force reductions have expired or are expiring soon. DOD is 
seeking to renew these authorities and is requesting new legislation to 
size and shape the force. My view is that DOD should make maximum use 
of voluntary authorities; however, great care should be taken to ensure 
those who leave are not going to be needed in the near term. If 
confirmed, I will study this issue closely and rely on the advice of 
both civilian and military professionals within DOD.

              RESERVE COMPONENTS AS AN OPERATIONAL RESERVE

    Question. What is your understanding and assessment of the Reserve 
components as an Operational Reserve, as opposed to its longstanding 
traditional role as a Strategic Reserve?
    Answer. Sustained engagement in combat operations has transformed 
the Reserve components of our Armed Forces from a purely strategic 
force to one that also provides operational, full-spectrum capabilities 
to the Nation. Repeated combat deployments, as well as peacekeeping, 
humanitarian relief, and Homeland defense missions, have produced a 
force more operationally capable and experienced than any time in our 
Nation's history. Given sufficient predictability of the ``next'' 
deployment, the vast majority of Reserve component forces and 
capabilities can be accessed systematically long into the future. 
National Guard and Reserve members expect to deploy periodically to 
meet the Nation's security needs, and all have volunteered to remain a 
part of the force with this ``new normal.'' This operational force is a 
direct result of the substantial investment in resourcing commitments 
and the personal sacrifice of members, their families, and their 
civilian employers. I expect that as budget pressures tighten, the 
Reserve component role will evolve along with that of the Active 
component in a strategy-driven process, which could alter the current 
shape of the Reserve component in ways not yet clearly understood.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the National Guard and Reserves as a relevant 
and capable Operational Reserve?
    Answer. Two key challenges that come to mind are access to the 
Reserve components and sustained funding for their operation. Since 
September 11, the Department has relied on the provisions of the 
Presidential Declaration of National Emergency to gain involuntary 
access to the Reserve components. This declaration must be extended 
annually for the provisions to remain in effect. The Reserve component 
is no longer considered a solely strategic capability to call upon in a 
national emergency. Therefore, to ensure continued access, I understand 
that DOD is working with the Armed Services Committees within the 2012 
NDAA to enable and facilitate periodic and recurring use by granting 
the Secretaries limited mobilization authority for up to 365 days for 
non-named contingency operations. This would better satisfy Joint Force 
Commanders' requirements.
    In addition to access, and depending on available resources, the 
Department will need to program sufficient resources to use the Reserve 
component on a predictable and periodic basis to meet requirements, 
preserve readiness gains, avoid snapping back to a purely Strategic 
Reserve, and capitalize on cost efficiencies inherent in Reserve 
component employment. As an operationally experienced and capable 
force, requiring only a small portion of defense funds, the Reserve 
components can provide solid solutions to the significant fiscal 
challenges our military and our Nation face.
    Question. What are your views about the optimal employment in 
generating forces for combat missions of the National Guard and 
Reserve?
    Answer. We've seen a significant change in Reserve component use 
over the past 20 years and have developed a Total Force--Active, 
National Guard, and Reserve--to meet sustained combatant commander 
requirements around the globe. This evolution, combined with the 
current era of conflict and the broad range of security challenges on 
the horizon requires us to make smart decisions about Total Force 
capabilities and capacities to make sure we have the forces needed to 
defend and advance our national interests. To that end, the Secretary 
of Defense directed a Reserve component front end assessment that will 
inform the 2013 Program Budget Review and should be completed in 
September. I would want to read that assessment before making any firm 
commitments. I believe those findings, combined with recommendations 
articulated in the Department's Comprehensive Review of the Future Role 
of the Reserve component, will present and shape optimum mix and 
employment models for our Total Force.
    Question. In your view, should Homeland defense or other global or 
domestic civil support missions be assigned exclusively to the National 
Guard?
    Answer. No, I believe each component of the Total Force--Active, 
Guard, or Reserve--has an important, layered, and interdependent role 
in the successful execution of Homeland defense and civil support 
missions.

                             NATIONAL GUARD

    Question. What is your understanding and assessment of changes in 
the global and domestic roles and mission of the Army National Guard, 
the Air National Guard, and the National Guard Bureau?
    Answer. The roles of the Army National Guard, Air National Guard, 
and the National Guard Bureau in domestic missions have not changed 
over the last few years. The National Guard continues to be the first 
military response to a community-based event. Meanwhile, the National 
Guard has performed exceptionally well in our conflicts overseas during 
the past 10 years, and is a combat-seasoned force.
    If confirmed, I look forward to participating in the discussion of 
how the National Guard will evolve its dual role of supporting domestic 
missions while remaining a relevant contributor to global missions in 
support of an evolving national military strategy.
    Question. What is your assessment of the effect, if any, of 
increasing the grade of the Chief of the National Guard Bureau to 
General (O-10)?
    Answer. From my experience as Commander, NORTHCOM, I believe 
elevating the grade of the Chief of the National Guard Bureau (NGB) to 
the rank of General has proven to be the right decision. In my current 
capacity, I have benefitted from being able to interact with a four-
star officer leading the NGB, and we have formed a solid partnership. 
The National Guard is an indispensable component of the operational 
military and the Chief serves as a bridge for the States to the Federal 
Government and the Active components of the military.
    Question. In your view, should there be a requirement that the 
position of Commander, NORTHCOM or Commander, U.S. Army North, the Army 
component commander, be filled only by a National Guard officer? Please 
explain.
    Answer. While I absolutely welcome the possibility that a National 
Guard officer could be assigned to either position, I do not believe 
there should be a mandated requirement for either position to be filled 
by a National Guard officer. I believe the best-qualified officer, 
regardless of status as Active, Guard or Reserve, should be selected as 
Commander, NORTHCOM and Commander, U.S. Army North.
    Question. In your opinion, should the Chief of the National Guard 
Bureau be a member of the Joint Chiefs of Staff?
    Answer. I have developed a strong relationship with--and am a big 
believer in--America's National Guard and I would, if confirmed, give 
such a change the serious consideration it deserves. Although, like the 
Commandant of the Coast Guard, the Chief of the National Guard Bureau 
already attends most meetings of the JCS, I do see potential advantages 
to this initiative, to include bringing his unique insights more 
formally into this forum. However, before making such a recommendation, 
I would want to gain a better understanding of its implications, to 
include: what it means for the rest of the Reserve component and 
whether they would feel disempowered, how it would affect the existing 
balance on the Joint Chiefs or would be redundant, whether other 
organizations with a title 10 role would subsequently require full 
membership, the potential implication that the National Guard would 
evolve into separate Services, and other implications of which I may 
not yet be aware.
    Question. What steps need to be taken, in your view, to ensure that 
a ``deep bench'' of National Guard general officers is continually 
being developed?
    Answer. I believe there should be more joint education and training 
opportunities for National Guard general officers. Additionally, I am 
encouraged by the Air Force's recent elevation of the 1st Air Force/Air 
Forces Northern Commander position to three stars and filling it with 
an Air Guard officer. I support reestablishing the three-star position 
of Vice Chief of the National Guard in order to develop National Guard 
lieutenant generals for promotion. As Commander of NORTHCOM and NORAD, 
I have benefitted by having National Guard officers assigned to my 
headquarters, which has surely contributed to their development, and I 
would encourage expansion of this program. The program under which we 
temporarily bring National Guard general officers into NORAD and 
NORTHCOM headquarters to fill in for Active Duty officers attending the 
CAPSTONE senior officer course has been a major success. If confirmed, 
I will continue to seek opportunities to grow and develop our bench of 
National Guard officers.

                         WOMEN IN THE MILITARY

    Question. In the past year, the Navy has opened on submarines to 
women, the Marine Corps has expanded opportunities for women in 
intelligence specialties, and the Army is reviewing its assignment 
policy for female soldiers. The issue of the appropriate role of women 
in the Armed Forces is a matter of continuing interest to Congress and 
the American public.
    Do you believe additional warfare specialties currently closed to 
women members should be opened for by women?
    Answer. I have always believed in opening the door to additional 
roles for women in the Services. Current policies provide DOD 
sufficient flexibility under current law to make changes to assignment 
policy for women. I believe the Services should continue to assess 
their combat needs in order to make those determinations and notify 
Congress accordingly as required by statute (10 U.S.C., Sec. 652 and/or 
Sec. 6035).
    Question. Do you believe any changes in the current policy 
regarding women in combat are needed or warranted?
    Answer. It is my understanding that the Department's policies and 
practices that restrict assigning female members are being reviewed at 
this time as mandated by section 535 of the NDAA for Fiscal Year 2011. 
I would want to have access to the facts from that review before making 
a recommendation.

                      RISING COSTS OF MEDICAL CARE

    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, then Secretary of Defense Gates told an audience at 
Maxwell Air Force Base that ``health care is eating the Department 
alive.''
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. The continuing cost growth trend will pose a greater 
problem for the Department the longer it remains unresolved. Rising 
costs of medical care will require the Department to balance the costs 
of the health care system against risks in warfighting capability. This 
may either require increased strategic and military risk or the 
acceptance of changes in the system of health care.
    If confirmed, I will help to ensure the health care system is 
flexible, efficient, and cost-effective to meet the requirements of the 
Military Departments, Services, and combatant commanders to achieve our 
military objectives. I will also consider the critical importance of 
the medical system for our people--military members, retirees, and 
their families.
    If confirmed, I look forward to continuing our efforts with 
Congress and DOD to find effective ways to improve the cost-
effectiveness of the Military Health System.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. The rising cost of health care is clearly an issue we need 
to work and will require the close support of Congress. Based on my 
current position, I do not have any specific initiatives in mind at 
this time. However, if confirmed, I will support the Secretary of 
Defense as he works with both the health care leadership of the 
Department, the health care industry, and veterans groups to examine 
new ways to ensure military beneficiaries are provided the highest 
quality care possible while managing cost growth. Although this may 
require some adjustments to the program, I will keep in mind the 
critical importance of the medical system for our people--military 
members, retirees, and their families. It is especially important that 
we provide the most advanced system of care possible in our combat 
theaters and provide for our forces who are returning with both 
``seen'' and ``unseen'' combat injuries.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. If confirmed, I will assist the Secretary of Defense, as he 
leads the Department's ongoing effort to explore all possibilities to 
control the costs of military health care. This may include an analysis 
of benefit payment structures, organizations, systems, and policies for 
the military health system. I would also support a strong push for the 
potential long-term gains available through the promotion of healthy 
life styles and prevention among our beneficiaries to help reduce the 
demand for health services.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. In addition to health care costs, personnel and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget. Secretary Panetta, in his 
confirmation process, advocated for a comprehensive review of military 
compensation, saying ``everything must be on the table,'' including 
military retirement.
    Do you believe the time is right to begin discussing reform of 
military compensation and retirement benefits?
    Answer. I agree with Secretary Panetta about the need to conduct a 
comprehensive review of military pay and benefits. I believe that it is 
possible to restructure our military pay and benefits in a way that 
continues to attract, support, and retain our men and women in uniform 
and their families while containing cost.
    Question. Other than reducing Active Duty and Reserve end strength, 
what actions do you believe can be taken to control the rise in 
personnel costs and entitlement spending?
    Answer. I understand that personnel-related costs represent a 
growing percentage of the DOD's limited resources. I'm also concerned 
about the fact that our current military compensation system is deep-
seated in structures established decades ago. To control the rise in 
personnel costs and entitlement spending, I believe it is appropriate 
to conduct a comprehensive review of the military pay and benefits 
structure to determine where costs can be contained. However, while I 
support a review of military pay and benefits, we must do so in a 
manner that supports and sustains the all volunteer force.

                          MILITARY RETIREMENT

    Question. The 10th Quadrennial Review of Military Compensation 
proposed a new defined benefit retirement plan that more resembles the 
benefits available under the Federal Employee Retirement System than 
the current military retirement benefit. Many other studies have 
questioned the affordability, feasibility, and fairness of the current 
``cliff vesting'' system.
    While it is often said that the military retirement benefit 
encourages retention after the 10-year point, do you believe it 
provides any significant boost to recruitment? Do 17-18 year olds, in 
your experience, care about retirement benefits when deciding to 
enlist?
    Answer. My understanding is that recruit surveys show retirement 
benefits are often not a driving factor to enlist for those who are 17-
18 years old, but I believe it may be appropriate to review the 
military retirement system for needed changes and efficiencies that 
encourage retention and boost recruitment. I understand that the 
Defense Business Board is reviewing military retirement and I look 
forward to reviewing their proposed alternatives to the current 
military retirement system in order to make an informed recommendation, 
if confirmed.
    Question. How might the military retirement system be modernized to 
reflect the needs of a new generation of recruits, while easing the 
long-term retirement cost to the government?
    Answer. There are many proposed alternatives to the current 
military retirement system. As General Cartwright has stated, changes 
these benefits tend to only impact on the Department's budget 
requirements in the long term. Any changes should be carefully 
considered, as they will have far-reaching and long-lasting effects on 
our force. I have no specific suggestions to offer at this time, but if 
confirmed, will closely review, along with the rest of the Joint 
Chiefs, those proposals and their impact in order to make an informed 
recommendation.

                SYSTEMS AND SUPPORT FOR WOUNDED WARRIORS

    Question. Members who are or have been wounded and injured 
performing duties in Operations Enduring Freedom, Iraqi Freedom, and 
New Dawn deserve the highest priority from their for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from Active Duty when appropriate, and 
continuing support beyond retirement or discharge. Despite the 
enactment of legislation and continuing emphasis, many challenges 
remain in both the Active and Reserve components in responding to the 
needs of wounded, ill, and injured members under current law and 
regulations.
    What is your assessment of the progress made to date by DOD, the 
Department of Veterans Affairs, and the Services to improve the care, 
management, and transition of seriously ill and injured members and 
their families?
    Answer. Since the institution of the Wounded, Ill, and Injured, 
Senior Oversight Council in 2007, DOD and VA have been working on 
multiple ways to improve the care, management, and transition of our 
wounded warriors and their families. DOD has established Wounded 
Warrior Units and Program oversight offices through which individual 
and family medical, mental, and social-economical needs are addressed. 
I understand DOD and VA have established several Centers of Excellence 
for development of diagnostic tools, treatment modalities, education, 
and training for care providers, wounded warriors, and family members 
to provide treatment for the multiple facets of injuries or illness our 
seriously wounded warriors face.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. I have been advised that we should continue to expand upon 
the research and treatment baselines established both within the 
private medical research and health care sector (e.g. Johns-Hopkins 
University on Traumatic Brain Injury, Mayo Clinic on Biomechanics, 
University of Utah and University of Massachusetts on Limb 
Regeneration) and the Centers of Excellence which fall under the 
Defense Center of Excellence for Psychological Health and Traumatic 
Brain Injury. These groups are making daily strides in providing the 
best level and quality of care to our wounded warriors and their 
families. If confirmed, I will continue to support their efforts and 
work to ensure that they receive the support (both financial and 
manpower) required for them to continue their important work
    Question. What are the weaknesses that need to be corrected?
    Answer. One weakness is clinical case management through the period 
when members transition from the Active Force to DOD retiree or 
eligible veteran status. For example, a single electronic health record 
is needed, and is in development but is still not deployed. 
Additionally, the improvement of the transition process and tracking 
for wounded warriors with unseen psychological wounds is an area of 
special concern. We must strive for continued process improvement for 
our wounded warriors--if confirmed, I will work to coordinate with all 
stakeholders to develop systems and processes to close these gaps.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded members 
and their families, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. I would continue to capitalize on the many non-profit 
programs and organizations that fall within ``the Sea of Goodwill''. 
There are hundreds of these organizations and programs that have come 
to the aide of the wounded warriors and their families to provide for 
everything from assistive devices (e.g. wheel chairs, house ramps), to 
conducting research on medical treatments, to providing direct economic 
aid. The Chairman's Office of Warrior and Family Support has been at 
the forefront on coordinating with a number of these organizations, 
cataloging those which provide the best quality and quantity of 
assistance to our wounded warriors and their families. I will also 
encourage continued work between the Federal and State governments on 
this important topic via the Council of Governors and other potential 
forums.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program, and now an Integrated DES program, have been 
established to improve processing of members.
    What is your assessment of the need to further streamline and 
improve the Integrated DES?
    Answer. I agree with the need to streamline the current Integrated 
Disability Evaluation System (IDES). It is my understanding that 
earlier this year, the Secretary of Defense and the Secretary of the 
Veteran's Administration established an IDES Tiger Team. Since May, the 
Tiger Team initiated a reform program and has set in motion a campaign 
plan to reduce the IDES total process time. The goal is to eventually 
reduce the IDES total process time to 90 days or less. This will 
require close coordination with Congress for legislative change. This 
will reduce the total number of warriors in the evaluation process, 
thus reducing the overall cost to the system and the burden on our 
wounded warriors.
    Question. If confirmed, how will you address any need for change?
    Answer. If confirmed, I will support current IDES reform 
initiatives as set forth by the secretaries and, if necessary, make 
recommendations to ensure the appropriate levels of disability rating 
and compensation are provided our Wounded Warriors.
  suicide prevention, high-risk behavior, and mental health resources
    Question. The numbers of suicides in each of the Services has 
increased in recent years. The Army released a report entitled ``Army 
Health Promotion Risk Reduction Suicide Prevention'' in June 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. In 
addition, mental health surveys conducted by the Army of soldiers and 
marines in theater document declines in individual morale and increases 
in mental health strain, especially among those who have experienced 
multiple deployments.
    In your view, what role should the Joint Chiefs of Staff play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all members and their 
families?
    Answer. The rising suicide rate amongst Active Duty personnel is 
deeply concerning. In response to the 2010 DOD Task Force Report on 
Prevention of Suicide, the DOD is developing an action plan to address 
the 13 foundational and 76 targeted recommendations in the report. 
Expeditious implementation and resourcing of the particular 
recommendations the services have identified as high priority would 
benefit DOD commitment to reducing suicides. If confirmed, I will 
continue to work closely with Congress, our military leaders, Veterans 
Affairs, and other Federal and civilian organizations to see that our 
members' and families' psychological health and mental health issues 
are addressed.
    Question. What is your understanding of the action taken in 
response to the June 2010 Army report, and the data in Chapter 3 (``The 
Lost Art of Leadership in Garrison'') in particular?
    Answer. It is my understanding that the Army continues to evaluate 
and modify programs and services that are related to health promotion, 
risk reduction, and suicide prevention. Early identification of ``high 
risk'' behavior, such as substance abuse and behavior problems, should 
allow leaders to intervene early. I understand that the Army has 
engaged leaders at all levels to improve education and awareness of 
behavioral health issues and high-risk behaviors. The Army has 
increased behavioral health providers at the brigade level in Active, 
National Guard, and Army Reserve units; required increased behavioral 
health screening before and after deployments; improved training for 
chaplains and suicide prevention coordinators; and improved training 
for primary care medical providers to identify and respond to 
behavioral health issues.
    Question. What actions, if any, should the Joint Chiefs of Staff 
take with respect to Army policies regarding detection of and response 
to illegal drug abuse?
    Answer. On 1 November 2010, the Chairman of the Joint Chiefs of 
Staff outlined several initiatives to improve the detection and 
response to illegal drug abuse. The DOD Biological Testing Advisory 
Board, which has Army representation, has been working to jointly 
address the recommendations identified and to discuss additional 
actions that would be beneficial. However, I understand that funding 
remains a constraint to immediate implementation of identified 
improvements.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to members in theater, 
and to the members and their families upon return to home station?
    Answer. Personal mental health issues cannot be ignored and, as an 
institution, DOD must continue to directly address this issue. My 
understanding is that there are three areas that must be addressed to 
ensure sufficient resources are available to members and their 
families.
    First, we must ensure that members are comfortable seeking 
treatment and using the resources that are available. A DOD Instruction 
will be issued soon to address this directly. This new instruction will 
positively affect command notification reducing the stigma associated 
with receiving mental health treatment. Second, we must continue 
working to develop additional and more effective mental health 
therapies. Third, we must ensure that we have the necessary resources 
available, including trained mental health professionals. We must 
continue to coordinate closely with our VA and civilian counterparts to 
ensure consistent staffing of mental health professionals across the 
continuum of care.

                        MILITARY QUALITY OF LIFE

    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care, and morale, welfare, and 
recreation services.
    How do you perceive the relationship between military and family 
readiness and quality of life improvements and your own top priorities 
for the Armed Forces?
    Answer. I expressed in a previous question that I will work closely 
with the Secretary and his staff, the Chairman, the other Joint Chiefs, 
and the combatant commanders to ensure our national defense remains 
strong by, among other things, ensuring our families and wounded 
warriors are cared for properly. We cannot protect this country unless 
we have healthy, personally-secure fighting men and women who are 
willing to put their lives on the line. A key component of this is 
ensuring we do everything possible and appropriate to meet their 
personal needs.
    Question. If confirmed, what further enhancements, if any, to 
military quality of life would you consider a priority in an era of 
intense downward pressure on budgets, and how do you envision working 
with the Services, combatant commanders, family advocacy groups, and 
Congress to achieve them?
    Answer. I understand the importance of quality of life programs on 
the wellness of the total force. If confirmed, I will encourage 
proactive management of the key areas such as access to counseling, 
fitness opportunities, child care support and spouse employment 
opportunities. Though basic quality of items such as satisfaction with 
PCS moves are largely issues, I have a keen interest in ensuring they 
are looked after properly. I look forward to working with advocacy 
groups and Congress to efficiently close gaps and reduce overlaps in 
programs and to communicate effectively with families to ensure that 
they know how to access available support when they need it.

                             FAMILY SUPPORT

    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for members and their families, and, if confirmed, how would you 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. I believe family readiness is tethered to family 
resilience. It is DOD's responsibility to ensure families are well-
prepared to meet the challenges that come with deployment and service. 
Through focusing on the psychological, social, financial, and 
educational well-being of military families, DOD can continue to build 
family resilience. I understand that strides have been made in 
improving access to resources for families through such programs as 
Military OneSource, and the Yellow Ribbon Program, but there is always 
room for improvement.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and growth in end 
strength?
    Answer. It is DOD's responsibility to ensure that all available 
resources, including those in health care, education, and employment, 
are available to families at the required level and location. In order 
to accurately address the needs of these families in a changing 
environment, it is also critical to DOD's success to build community 
partnerships between all Federal agencies and with local governments, 
businesses, and nonprofit organizations that are stakeholders in 
addressing the stressful aspects of military life. I also believe we 
need to encourage continued progress among individual states' 
legislative initiatives to ease recognition of professional 
accreditation of family members and support for various school programs 
transferring children. If confirmed, I will monitor the changing needs 
of our military families closely.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. DOD has a duty to ensure that every family has access to 
quality resources, regardless of location. These resources should 
provide information, access, referrals, and outreach to all military 
members and their families. This needs to be underwritten by a 
coordinated, community based network of care encompassing DOD, VA, 
State, local, nonprofit, and private providers. It is my understanding 
that DOD's Yellow Ribbon Program has been successful in addressing 
these needs. If confirmed, I will assess this program to ensure that it 
is properly focused and funded to address the issues faced by Active 
Duty, Guard, and Reserve members and their families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. I understand there are many excellent State programs that 
support members and their families. If confirmed, I would like to 
explore these further and see if they can be expanded across all 
States. If confirmed, I would encourage the implementation of flexible 
family support programs that meet the needs of our members and their 
families, whether they live on military installations, near military 
installations, or far from military installations

                   DEFENSE READINESS REPORTING SYSTEM

    Question. In June 2002, the Department issued a directive to 
replace the current readiness reporting system, yet that replacement is 
yet to be fully operational.
    What challenges still remain in the transition from the Global 
Status of Resources and Training System (GSORTS) to the Defense 
Readiness Reporting System (DRSS) and what is the plan to fully 
implement DRRS?
    Answer. It is my understanding that the transition from the GSORTS 
to the DRRS faces challenges associated with management, acquisition 
practices, definition of requirements, and testing. The transition is 
scheduled to be complete the end of fiscal year 2012. I also understand 
that as part of the DRRS governance structure, the Joint Staff is 
working with the Under Secretary of Defense (USD) for Personnel and 
Readiness to develop an executable implementation plan, including 
milestones, performance goals and quantifiable, measurable validated 
requirements. On 6 June 2011, the DRRS was placed under Director, 
Operational Test and Evaluation, and USD Acquisition Test and Logistics 
Developmental Test and Evaluation oversight.
    Question. Have any delays or obstacles been attributed to 
technological maturity or changing requirements?
    Answer. I understand the Joint Staff was informed by the DRRS 
Implementation Office (DIO) during normal governance processes of some 
technological challenges. These included challenges associated with the 
ability of the DRRS to connect to strategic command and control systems 
and connections within the DRRS enterprise. I also understand that 
changing requirements have also contributed to delays in the 
development of a long-term DRRS program, and the transition from 
GSORTS. Additionally, since the originally planned Full Operational 
Capability (FOC) date of 2007, challenges remain with clearly defining 
measurable requirements. When combined with growing lists of 
requirements that still require prioritization or validation, efforts 
to develop executable plans have been delayed. Work continues to define 
FOC criteria, finalize dates for transition, and complete the 
accompanying implementation plan.
    Question. GAO has reported that significant shortfalls remain in 
the implementation of DRRS, stability of requirements, adequacy of 
testing, and overall management and oversight of the program.
    What is your view on their findings?
    Answer. I concur with the specified findings of the 2009 GAO 
report. I support the DRRS oversight related findings in GAO-11-256, 
``Military Readiness: Army and Marine Corps Reporting Provides 
Additional Data, but Actions Needed to Improve Consistency'' report. 
Specifically, I believe steps are needed to achieve interoperability, 
oversight, and execution. Additionally, I concur with the GAO 
assessment that an independent program risk assessment is needed to 
improve program organization.
    Question. With respect to DRRS development and implementation, to 
what extent, if any, has the USD for Personnel and Readiness, worked or 
coordinated with the Director of Defense Research and Engineering and 
the Chief Information Officer of DOD?
    Answer. I am aware of a report and corresponding memorandum 
produced for the Defense Committee as directed by the NDAA for Fiscal 
Year 2010. I understand the USD for Personnel and Readiness and the 
Director of Defense Research and Engineering produced the report. I do 
not believe the September 2010 report, ``Preliminary Technology 
Readiness Assessment Report on the DRRS,'' and accompanying memorandum 
to the committee, ``DRRS--Response to the Request Made on Page 111 of 
Senate Report 111-35'' was coordinated with or endorsed by the Joint 
Staff. I am aware the Assistant Secretary of Defense, Networks and 
Information Integration/DOD Chief Information Officer coordinates with 
the USD for Personnel and Readiness through participation in the DRRS 
governance process.

                      AIR FORCE TACTICAL AVIATION

    Question. As the head of the JROC, you would be responsible for 
overseeing the development and validation of requirements for major 
weapons systems. Some have raised concerns that many of the problems 
within the Joint Strike Fighter (JSF) program derive from growth in 
requirements.
    Do you agree that this is a problem with the JSF program?
    Answer. I understand that issues with the JSF program have been 
addressed through a deliberate requirements and acquisition review 
process, and that requirements growth has been an issue. A high level 
replan was approved in January 2011, and the program expects to deliver 
a fully-compliant weapon system. I am taking steps to gain in-depth 
familiarity with the JSF program, intend to give the program my close 
personal attention, and fully support continuing JROC reviews of the 
program.
    Question. What actions would you propose to take to prevent 
requirements growth on major weapons systems?
    Answer. Requirements growth requires continued vigilance, which 
will be especially important in an increasingly constrained budget 
environment. If confirmed, I will continue to emphasize current checks 
and balances that are in place to include the ``trip-wire'' process and 
Configuration Steering Boards. Additionally, I understand that one of 
the core elements of the ongoing JCIDS review is to strengthen 
requirements synchronization with the acquisition process, which will 
serve to improve control of requirements growth.
    Question. If the JROC cannot control requirements growth on the 
largest acquisition program in the DOD portfolio, what prospect is 
there that the JROC could control requirements growth on any other 
major acquisition programs?
    Answer. I fully acknowledge the committee's concern regarding 
requirements growth. I have confidence that the JROC maintains adequate 
authorities and processes to manage requirements growth, and if 
confirmed, I will continue General Cartwright's emphasis on imposing 
discipline on such growth.
    Question. At a hearing earlier this year, the committee received 
testimony from senior DOD officials that there really is no alternative 
to continuing the JSF program.
    What actions would you propose to take to prevent DOD from finding 
that future major acquisition programs that run into cost schedule or 
performance problems leaves us with no alternative but to continue the 
troubled programs?
    Answer. I do not believe any program is too big to fail or should 
be fenced. That said, we need to work hard to ensure programs, 
including the JSF, are successfully executed. Process improvements 
resulting from the Weapons Systems Acquisition Reform Act and JCIDS 
review should reduce the risk of similar circumstances in the future. 
If confirmed, I will work closely with my and OSD(AT&L) counterparts to 
properly manage current and future program development to balance cost, 
schedule, and performance in the best interest of the taxpayer.

                          IRAQ LESSONS LEARNED

    Question. What do you believe are the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. While there are other lessons to be sure, perhaps the most 
important lesson is that in executing a major contingency, we must 
remain prepared for the difficult work that occurs in the wake of major 
combat. This will manifest itself in two ways. First, in framing future 
strategic and force sizing constructs, we must account for the fact 
that conflicts are never as compact as predicted, and that the notion 
of rapidly swinging forces from one conflict to another must be viewed 
with healthy skepticism. Second, we must plan and train with our 
civilian counterparts and be prepared to operate effectively in all 
phases of conflict. That said, the military should also be prepared to 
undertake critical non-military tasks when civilian agencies cannot 
operate effectively, either due to the security environment or due to 
lack of capacity. Indeed, the need for greater capabilities and 
capacity in civilian agencies has been a recurring lesson for the 
entire U.S. Government. Finally, we need to obtain better situational 
awareness of the underlying political, cultural, and economic drivers 
within a host nation to ensure our actions meet our objectives and not 
trigger unintended consequences.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon the lessons learned?
    Answer. The Iraq war has led to deep and far-reaching changes in 
all of the areas listed above. For example, counterinsurgency doctrine 
has been completely revised, culminating in the publication of 
Counterinsurgency Field Manual 3-24. Force structure changes include 
the development of the Advise and Assist Brigade. Additionally, the 
Department better understands that in Irregular Warfare, the strategic 
center of gravity is a population, and not necessarily a nation-state. 
The Department has demonstrated the ability to learn and adapt across 
Doctrine, Organization, Training, Materiel, Leadership & Education, 
Personnel, Facilities, and Policy.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure, or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. I understand that most of the lessons from Iraq are in the 
process of being integrated into DOD policy and doctrine. However, I do 
believe we need to be cautious in not over-correcting into a force that 
is exclusively prepared for an Iraq-type of conflict.
    Question. What is your understanding of the role of the Joint Staff 
in supporting and resourcing efforts in Iraq, Afghanistan, and 
elsewhere to foster commitment to the ``Rule of Law'' as part of 
stability operations and doctrine?
    Answer. The principle of respect for the rule of law is thoroughly 
embedded in our military forces and is reinforced throughout joint 
doctrine with regard to stability operations. Stability operations are 
a core military mission and our support to other U.S. Government 
agencies is a significant force multiplier. Indeed we recognize that it 
is often the establishment of the rule of law, and a security sector 
that can enforce it, that will permit the redeployment of the joint 
force when supporting a stabilization effort in a failed or failing 
state. Even in a non-combat theater, at NORTHCOM we maintain an 
extensive relationship with the Mexican military on human rights and 
the rule of law that, with the support of Congress, is fully supported 
by counternarcotics funding.
    I understand that a portion of the OSD's Operations and Maintenance 
budget has been designated to support continued strategic planning, 
programming, and interagency training for rule of law operations and 
that the Joint Staff recently assisted the Under Secretary of Defense 
for Policy in gathering information to draft a rule of law report that 
soon will be delivered to Congress.

                            DRAWDOWN IN IRAQ

    Question. Do you support the plan for the drawdown of U.S. forces 
from Iraq consistent with the 2008 U.S.-Iraq Security Agreement?
    Answer. I support the current plan for the drawdown of U.S. forces 
from Iraq in accordance with the 2008 U.S.-Iraq Security Agreement. It 
is important that we fulfill our obligations under this bilateral 
agreement and we are on track to complete the drawdown by December 31, 
2011.
    Question. What is your assessment of the Department's planning for 
the withdrawal of troops and equipment out of Iraq consistent with the 
December 2011 deadline of the 2008 U.S.-Iraq Security Agreement?
    Answer. The drawdown of troops and equipment in Iraq is on track 
due to solid planning and the discipline, training, and dedication of 
our deployed forces. My understanding is that the Joint Staff closely 
tracks the progress of the drawdown on a daily basis. Since this 
process began in 2010 with the force reduction from 159,000 to 50,000 
troops, we have closed hundreds of bases and outposts and turned them 
over to our Iraqi partners in better condition than we inherited them. 
Our logisticians have moved mountains of equipment. The plan is on time 
and on schedule for a complete withdrawal by the December 2011 deadline 
of the Security Agreement.
    Question. It's been reported that the administration is considering 
options for a U.S. force to remain in Iraq beyond December 2011 should 
the Iraqi Government request the continuing presence of U.S. forces.
    If a continuing U.S. troop presence in Iraq beyond the end of this 
year is requested by the Government of Iraq (GOI), would you support 
the deployment or retention of additional troops in Iraq beyond the 
present deadline for U.S. troop withdrawal?
    Answer. If the GOI requests the presence of U.S. forces beyond 
2011, I will consider the missions the GOI is asking our forces to 
perform, the risks our forces will face, the willingness of the GOI to 
take action against militias and other extremist groups that could 
target U.S. forces, the benefit it might bring to Iraq and the U.S.-
Iraq relationship, and the cost of the mission. If confirmed, and if 
these factors support retention of U.S. forces, I would make such a 
recommendation.

                     LEAD AGENCY TRANSITION IN IRAQ

    Question. Responsibility for lead U.S. agency in Iraq is scheduled 
to transition from DOD to the Department of State (DOS) by October 
2011. However, a May 2011 State Department Inspector General report 
found that progress in effectively transitioning to a civilian-led 
presence in Iraq is slipping in a number of key areas, including the 
establishment of the Office of Security Cooperation in Iraq to manage 
the defense relationship between the U.S. Government and the GOI.
    What is your assessment, if any, of the planning and progress in 
executing the transition from DOD to DOS? In your view, what are the 
sources of greatest risk to the current plan and the successful 
implementation of the transition?
    Answer. My understanding is that the transition from DOD and DOS is 
on track. DOD, DOS, and other agencies and offices have undertaken 
unprecedented levels of coordination and planning for the transition in 
Iraq. We have an excellent working relationship with our State 
Department colleagues and are working together at all levels to achieve 
a successful transition. As one would expect with a transition of this 
scope and complexity, challenges exist, but it is my understanding that 
we are working together to overcome them and remain on schedule. Fully 
funding the State mission to its completion is vital to this effort.
    Question. If confirmed, what changes, if any, would you recommend 
to the current plan or the implementation of transition?
    Answer. The transition plan is solid, and my understanding is that 
we are on track to fully implement it. Normal operational challenges 
remain as we close bases and move personnel and equipment, but we 
anticipate no issues meeting the deadline in accordance with the 
transition plan. However, should the Iraqis request a continued U.S. 
presence beyond 2011, I would want to be closely involved in subsequent 
planning efforts.

                    U.S.-IRAQ STRATEGIC RELATIONSHIP

    Question. In your view, what will be the nature of our strategic 
relationship with Iraq after December 31, 2011?
    Answer. Our stated goal has always been to establish a long-term 
strategic partnership with Iraq. We support an Iraq that is sovereign 
and self-reliant; that has a just, representative, and accountable 
government; that denies support and safe haven to terrorists; that is 
integrated into the global economy; and that contributes to regional 
peace and security. All these elements of our desired strategic 
relationship with Iraq were codified in the 2008 Strategic Framework 
Agreement established between Iraq and the United States. If confirmed, 
it is my intention to closely monitor the status and progress of our 
relationship.

                          AFGHANISTAN STRATEGY

    Question. Do you agree with President Obama's strategy for 
Afghanistan and Pakistan announced at West Point in December 2009?
    Answer. Yes.
    Question. On June 22, 2011 President Obama announced his decision 
to draw down 10,000 U.S. troops from Afghanistan by the end of this 
year and to withdraw the remaining 23,000 ``surge'' force by September 
2012, for a total announced drawdown of 33,000.
    Do you support the President's decision to begin reducing U.S. 
forces in July 2011? Why or why not?
    Answer. While I have not been focused on the mission in Afghanistan 
while executing my duties at NORAD and NORTHCOM, it is my understanding 
that we have made significant gains as a result of deploying the surge 
force. This force increase has allowed us to arrest Taliban momentum, 
establish security in previously-held Taliban areas such as Central 
Helmand and Kandahar (areas of historic importance to the insurgency), 
and expand Afghan National Security Forces (ANSF) capacity and 
capability. It is my understanding that the theater and combatant 
commander have expressed that we can drawdown and continue to manage 
the risk, as long as we retain flexibility if circumstances on the 
ground change. Commencing the drawdown in July 2011 has the benefit of 
sending an important signal to the Afghan Government that international 
support is not open-ended.
    Question. Do you support the President's decision regarding the 
size and pace of reductions in U.S. forces? Why or why not?
    Answer. Yes. It is my understanding that this decision does not 
represent a change in our strategy--the ends, ways, means, and boundary 
conditions outlined for the mission in Afghanistan remain the same. It 
appears to me that we have reached a point in the campaign where a 
responsible drawdown in U.S. forces is possible. Once surge forces are 
removed, there will still be more than 68,000 U.S. troops and thousands 
of international forces in Afghanistan--not to mention the addition of 
some 70,000 Afghan forces that will join the fight during the next 15 
months. At the same time, the international community has demonstrated 
its intention to support Afghanistan until at least 2014, and the U.S. 
and NATO are both discussing some form of long-term partnership 
relationship with Afghanistan.
    Thus, I agree with the President's decision. If confirmed, I will 
remain abreast of conditions on the ground in Afghanistan and, should I 
determine the situation has changed, I will provide such advice to the 
Chairman and the Secretary.

                   SECURITY SITUATION IN AFGHANISTAN

    Question. What is your assessment of the current security situation 
in Afghanistan?
    Answer. It is my understanding that the security situation in 
Afghanistan continues to improve though, as General Petraeus has said, 
it is fragile and reversible. Insurgent momentum has been halted in 
most of the country and reversed in many key areas like Helmand and 
Kandahar. For example, May and June mark the first time since 2006 that 
insurgent attacks have decreased when compared to the same months the 
year prior. The enemy is resilient and retains lethal capacity as well 
as the ability to regenerate over time. However, even in the wake of 
recent attacks, the Government of the Islamic Republic of Afghanistan 
(GIRoA) and the ANSF have also proven their resilience and it appears 
that they will continue to push forward for a secure and stable 
Afghanistan. Our forces, partnering with the ANSF, should help to 
further pressure the enemy by degrading support networks and further 
reduce support for the enemy among the Afghan population. Nonetheless, 
numerous security challenges remain, and there will be tough fighting 
in the years ahead as we transition security to Afghan lead by the end 
of 2014.

           BEGINNING OF TRANSITION OF SECURITY RESPONSIBILITY

    Question. The transition of lead security responsibility to Afghan 
security forces is set to begin in mid-July, with the initial phase to 
be completed by the end of this year. In March President Karzai 
announced the first tranche of provinces and municipal districts 
designated for the transition of security responsibility to an Afghan 
lead. President Karzai has called for the transition of security 
responsibility throughout Afghanistan to be completed by 2014, and 
International Security Assistance Force (ISAF) members endorsed this 
goal at the NATO Lisbon Summit in November 2010.
    Do you support the decision to transition the lead security 
responsibility to the Afghan security forces in the areas announced by 
President Karzai beginning this month?
    Answer. Yes, based on support from our commander on the ground.
    Question. In your view, how important is it to the 
counterinsurgency effort in Afghanistan that the transition of security 
responsibility begin in July 2011?
    Answer. Transitioning to Afghan-led security responsibility is the 
next step in our comprehensive counterinsurgency (COIN) effort in 
Afghanistan. It will not be easy, and there will likely be setbacks as 
well as progress. However, as we seek to eliminate safe havens from 
which al Qaeda or its affiliates can launch attacks against our 
homeland or our allies, the Afghan Government must step up its ability 
to protect its people and move forward with actions to build a more 
stable, economically viable country in the future. We should remain 
committed to working with the Afghan Government and our coalition 
partners in executing the transition phase of the NATO/ISAF 
comprehensive COIN strategy in order to transfer lead security 
responsibility to the Afghan Government by the end of 2014.
    Question. What is your assessment of the capacity of the Afghan 
security forces to assume the lead for security in the areas designated 
for this initial round of transition?
    Answer. I believe that the Afghans are prepared to assume the lead 
for security in the areas designated in the first tranche based on my 
understanding of the current size and capability of Afghan security 
forces. Afghan security forces are already in the lead in some places, 
such as Kabul and Panshir. It goes without saying that our support will 
be critical, especially in the early days of the transition, but the 
Afghan National Security Forces must step up, and these areas are a 
good place to start.

              BUILDING THE AFGHAN NATIONAL SECURITY FORCES

    Question. There are approximately 100,000 more Afghan soldiers and 
police now than there were in November 2009 and by September 2012 
another 70,000 personnel will be added to the ANSF. A new ANSF target 
end strength of 352,000 by 2012 is awaiting final approval by the Joint 
Coordination and Monitoring Board.
    In your view, is the target end strength level for the ANSF 
sufficient to provide security and stability in Afghanistan?
    Answer. I believe the Afghan National Army and Afghan National 
Police should be capable of achieving the lead for security by the end 
of 2014 if the Joint Coordination and Monitoring Board approves the 
352,000 ANSF target end strength and if that end-strength is achieved.
    Question. What in your view are the greatest challenges to building 
the capacity of the ANSF to assume responsibility for Afghanistan's 
security?
    Answer. I believe the primary challenges to ANSF capacity building 
are: building literacy, reducing attrition, developing leaders, 
eliminating insider threats, and provision of key enablers such as 
logistics, maintenance, and intelligence capability.
    Question. There remains a shortfall in the number of training 
personnel required for the NATO Training Mission Afghanistan (NTM-A) 
and in the number of embedded training teams, the Operational Mentoring 
and Liaison Teams (OMLTs) embedding with Afghan Army units and the 
Police OMLTs (POMLTs) embedding with Afghan Police units.
    In your view, to what extent should U.S. forces be used to source 
the shortfall in NTM-A trainers?
    Answer. Fielding professional and capable ANSF is critical to our 
long-term success in Afghanistan. This is a priority for ISAF and NTM-
A. U.S. personnel are currently filling numerous training and 
partnership requirements throughout Afghanistan. Our forces will 
continue to support the ANSF as required in order to achieve our 
mission objectives. This may require shifting U.S. forces into 
positions to cover trainer shortfalls if required by the commanders in 
the field.
    Question. What more should be done to get NATO members and other 
coalition partners to meet the ISAF requirements for additional NTM-A 
trainers and OMLTs and POMLTs?
    Answer. Training shortfalls are a longstanding issue best addressed 
by continued engagement with our partners by all elements of the U.S. 
Government--including Congress--as well as by NATO/SHAPE HQ, HQ ISAF, 
and representatives of the NATO training mission. Our allies and 
contributing nations with operational commitments are being encouraged 
to reinvest any combat troop reductions with trainers, as has recently 
occurred with our Canadian partners. Personnel with specialized skills 
such as police, logisticians, medical, and maintenance specialists are 
essential. We continue to work on filling all training requirements, 
while also developing more Afghan trainers, in order to realign 
coalition trainers.
    Question. A key component of efforts to build the capacity of 
Afghan security forces is partnering ANSF units together with ISAF 
units in the field.
    In your view, how effective has partnering been in building the 
capacity of the Afghan Army and Afghan police?
    Answer. Partnering is an essential component of building Afghan 
security force capacity in order to allow Afghans to assume the lead 
for security across the country by the end of 2014. It is my 
understanding that we have made significant strides with our baseline 
training while, at the same time, focusing on our partnership efforts. 
This has proven to be the most effective way of increasing Afghan 
capability, confidence, and professionalism in the field. Afghan units 
that are partnered with ISAF elements continue to develop more rapidly. 
Partnered units are more effective in the field, have a better 
understanding on how to sustain their forces and have fewer incidents 
of corruption.
    Question. Would you support moving to a partnership ratio of ISAF 
and ANSF forces below 1:1 (less than one ISAF soldier for every ANSF 
soldier) as the capability of Afghan security forces improves?
    Answer. My understanding is that we intend to do this as we 
transition security responsibility. This is part of the process of 
building ANSF capacity and then putting them in the lead. Developing 
units will require greater partner support, while effective units will 
have less partner support. Balancing partner efforts increases their 
capacity. Partner ratios will change dramatically as we move to 
complete Afghan control. My understanding is that there are several 
units now below a 1:1 partner ratio, and there are increasingly more 
areas where Afghans are in the lead or operating independently.
      relationship between counterterrorism and counterinsurgency
    Question. In your view, what is the proper relationship between 
counterterrorism and counterinsurgency operations in Afghanistan?
    Answer. The mission in Afghanistan is to degrade, disrupt, and 
destroy al Qaeda and to provide sufficient stability so that 
Afghanistan can never again become a safe haven for terrorists. As 
such, counterterrorism directly targets al Qaeda networks themselves, 
including leadership, thereby addressing the first imperative. It also 
supports the counterinsurgency campaign, which in turn intends to 
eliminate the conditions in which al Qaeda can exist. Special 
operations forces are vital in both roles.

            AFGHAN LOCAL POLICE/VILLAGE STABILITY OPERATIONS

    Question. Secretary Panetta and others have emphasized the 
importance of the Village Stability Operations and Afghan Local Police 
programs to the strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. My understanding is that the Afghan Local Police (ALP) 
program and Village Stability Operations (VSO) have had a measurable 
and positive effect on security in Afghanistan. Since the program's 
inception by Afghan presidential decree in August 2010, ALP has grown 
to over 6,700 patrolmen operating at 44 validated sites. ALP is a means 
of extending legitimate security where ISAF forces are scarce or non-
existent. VSO, of which ALP is a component, builds the connection 
between the village, the province, and the central government. The 
program is intended to jump-start local governance and also mobilize 
communities, a key condition for local populations to resist Taliban 
predation. The enemy has explicitly targeted VSO because they fear its 
effectiveness and ALP members have successfully fought off Taliban 
attacks in a number of recent incidents. The ALP program and VSO 
continue to grow, and Afghans across the country are eager for the 
program to come to their area.
    Question. Do you believe the availability of U.S. special 
operations teams is a limiting factor in expanding these programs to a 
point where they can have a strategic impact in Afghanistan?
    Answer. My understanding is that the number of ALP and VSO sites we 
can establish in Afghanistan is limited by the availability of Special 
Operations teams. This is because Special Operations teams embed and 
live where VSO/ALP has been established. In order to expand the VSO/ALP 
program, Combined Forces Special Operations Component Command-
Afghanistan (CFSOCC-A) has operational control of two U.S. Army 
Infantry battalions. The deployment of these two battalions under 
CFSOCC-A control has allowed us to thicken the Special Operations 
forces and free up more special forces personnel for new ALP/VSO 
missions. We expect that this will allow us to continue to increase the 
ALP program, even as the number of Special Operations in Afghanistan 
remains fairly constant.
    Question. How do indirect approaches like Village Stability 
Operations and Afghan Local Police Programs compliment direct action 
counterterrorism missions within the U.S. strategy in Afghanistan?
    Answer. I understand that the VSO/ALP program methodology includes 
full-time embedded partnership between Special Operations Forces and 
local villagers. Local villagers have among the best insight into 
insurgent actors, intentions, and their support structures. Special 
Operations forces conducting VSO/ALP and those conducting precision 
strike operations habitually cooperate and share information. The 
combination of these two efforts has had significant synergistic 
effects for the overall campaign and have made key areas of Afghanistan 
inhospitable to the Taliban and other insurgent groups.

                                PAKISTAN

    Question. The relationship between the United States and Pakistan 
has often been described as tumultuous. Recent reports indicate 
Pakistan has expelled approximately 90 out of 135 special operations 
personnel who were deployed there to train the Frontier Corps and other 
Pakistani security forces to fight al Qaeda, the Taliban, and other 
associated groups. Also the United States has announced that some aid 
to Pakistan's military will be suspended.
    What is your assessment of the military-to-military relationship 
between the United States and Pakistan?
    Answer. Militaries in general tend to respect the common ethos 
associated with serving their nations' interests through the profession 
of arms. This general appreciation applies to how we regard Pakistan's 
military: since 2001, they have incurred roughly 12,000 casualties 
(3,000 KIA, 9,000 WIA) fighting violent extremists. We respect their 
courage and commitment to the defense of their nation. Relationships 
ebb and flow based on a combination of national interests, 
communications, and events. It is no surprise that our relationship is 
undergoing a turbulent period at present. The Pakistan military 
leadership has concluded that, for a variety of reasons, we should 
reduce our footprint inside their country, and we will of course abide 
by their decision, which will result in withholding some related aid. 
But we take our Pakistani counterparts at their word that this 
footprint reduction is temporary in nature.
    Even though this is a difficult partnership, it is an important 
one. We cannot afford to return to the days when there was no 
partnership at all and a generation of Pakistani officers grew up with 
no contact with the United States. This professional relationship will 
continue to evolve at the most senior levels in Islamabad and 
Rawalpindi, and along the Pakistan-Afghanistan border at the tactical 
and operational levels.
    Question. In your view does the presence of nuclear weapons in 
Pakistan and the security of these weapons have any effect on the 
military-to-military relationship between the United States and 
Pakistan and if so, how is that best addressed?
    Answer. The fact that Pakistan is a nuclear-armed state that faces 
internal threats from extremist organizations makes it even more 
important to maintain a solid military to military relationship. 
Although the nature of the Pakistani state makes it unreasonable for us 
to expect routine access and perfect transparency, through military 
relationships we can offer perspectives on modernization, engagement 
with regional partners, and professionalism that will further develop 
our shared interests and shared approaches. From a DOD perspective, we 
have confidence in the caliber of officers Pakistan has charged with 
maintaining their strategic weapons systems. Should Pakistan desire, I 
believe we stand ready to support additional efforts to improve the 
security and safety of their nuclear weapons, and I believe we would 
welcome increased engagement in this facet of the security arena.
    Question. Do you believe the current difficulties, including 
reported reductions in U.S. trainers, are temporary or lasting?
    Answer. Difficulties and opportunities ebb and flow; we have a good 
measure of both right now. Certainly the reduction of our footprint and 
training capacity are one of the difficulties. No doubt we will 
continue to maintain some of the more constructive aspects of our 
relationship, and I believe the relationship will recover. I am unable 
to discern whether or when Pakistan will invite our Special Forces 
Trainers back in at the levels we believe would best benefit their 
efforts to counter violent extremists bent on overthrowing their 
government and threatening the United States and our allies. 
Nonetheless, we continue to have productive engagements in other 
venues, including coordination between units on both sides of the 
border.
    Question. In your assessment, how important is the U.S.-Pakistan 
military-to-military relationship to the success of our 
counterterrorism strategy?
    Answer. U.S. strategic interests in Pakistan encompass both our 
relationship with Pakistan itself and Pakistan's role in the campaign 
against al Qaeda and its adherents and affiliates. Because our efforts 
in Afghanistan have eliminated it as a safe haven, al Qaeda and other 
extremists use Pakistan as a base for the movement's overall ideology 
and to plot and prepare attacks against the United States and our 
allies and partners. These safe havens also pose a major challenge to 
our campaign in Afghanistan. Pakistan's efforts in eliminating these 
safe havens are dependent in some measure on U.S. support, which 
implies the need for a strong military-to-military relationship. Their 
full commitment to this effort would mark a new era of deeper 
partnership in which we share the mission of defeating terrorists and 
extremists.
    Question. What is your assessment of U.S. programs to build the 
capacity of the Pakistan Army and the Pakistan Frontier Scouts to 
conduct counterinsurgency operations in the Pakistan-Afghanistan border 
region, including train and equip programs under the Pakistan 
Counterinsurgency Fund?
    Answer. Enabling the Pakistani Army and the Frontier Corps to 
eliminate extremist safe havens is the premise of our outreach through 
the Pakistan Counterinsurgency Fund, intended to add additional 
capability to Pakistani courage and competence that already exists. 
Pakistan's senior military and civil leaders must in turn demonstrate 
the willingness to aggressively take on this mission.
    I understand that PCF-funded training, equipment, and 
infrastructure have produced some important initial results for the 
Frontier Scouts, Special Services Group, and other organizations 
involved. The quality of Pakistani Army and Frontier Corps units' 
tactical maneuver, communications, marksmanship, and intelligence have 
demonstrably improved for participating small units. These programs 
have only begun to fully operate, and they remain vulnerable to 
disruptions of funding or access
    Question. In your view, to what extent does the Pakistan military 
recognize that militant extremists groups pose a threat to Pakistan's 
own national security interests, including such groups as the Haqqani 
network, the Afghan Taliban operating in and around Quetta, and 
Lashkar-e-Taiba?
    Answer. The Pakistani nation will always act in its own interests, 
which are often different from our own. Pakistan has viewed India 
itself and Indian (or any other nation's) domination of Afghanistan as 
an existential threat, and has taken steps it believes are necessary to 
counter this threat, including developing nuclear weapons and nurturing 
extremist groups to fight proxy irregular warfare. That the Pakistani 
military benefits from presenting India as a threat, and that there are 
many in the military who sympathize with the extremist views of these 
groups, only reinforces this tendency. Moreover, these groups fought 
hard against the Soviets during their invasion of Afghanistan, and thus 
the military bears a certain loyalty to them. However, in both 
supporting and tolerating these groups, the Pakistani military has 
grabbed the tail of a tiger that they may or may not be able to 
control. Military and civilian leadership seem to have gained in recent 
years a greater appreciation for the costs and dangers of such 
tolerance. For that reason, Pakistan has increasingly proven ready to 
act against extremist groups that target their own government. We are 
working, with limited success, to convince our Pakistani partners that 
they must take externally-focused terror groups just as seriously as 
domestic terror groups, that in fact all such groups form a linked 
syndicate of sorts.

                             CYBERSECURITY

    Question. In a recent interview with Defense News, Admiral Mullen 
stated that ``The single biggest existential threat that's out there, I 
think, is cyber.''
    Do you agree with Admiral Mullen and, if you do, do you believe 
this threat is receiving appropriate focus and resources within DOD?
    Answer. I agree on both counts. Both state and non-state actors 
have or are developing the capability to severely impact both our 
national infrastructure and our ability to execute command and control 
and other military functions that have become dependent on cyber 
capability. It is a serious threat. Last year the Secretary of Defense 
created a new, sub-unified command, U.S. Cyber Command, to address this 
issue and help preserve the Nation's freedom of action in cyberspace. 
The launch of the DOD Strategy for Operating in Cyberspace on 14 July 
2011 is also a clear indicator that the Department is focused on the 
cyber threat. With the implementation of the strategy's five strategic 
initiatives, the Department is focusing its resources both internally 
and externally to organize, train, and equip our forces to take full 
advantage of cyberspace's potential; employ new defense operating 
concepts to protect DOD networks and systems; partner with other U.S. 
Government departments and agencies and the private sector to enable a 
whole-of-government cybersecurity strategy; build robust relationships 
with U.S. allies and international partners to strengthen collective 
cybersecurity; and leverage the Nation's ingenuity through an 
exceptional cyber workforce and rapid technological innovation.
    Question. What role do you expect to play, if confirmed, in the 
development of DOD's cybersecurity policy, strategy, and planning?
    Answer. Our reliance on cyber capabilities, the many and varied 
threats, and the rapid rate of technological change all demand we shine 
a spotlight on defense of our information networks. If confirmed, I 
will advocate within the Department, and with Federal agencies and 
Members of Congress, for appropriate policies and resources regarding 
cyberspace. Although the Department just released the DOD Strategy for 
Operating in Cyberspace, there is still a great deal of work to do, 
including placing greater focus on interagency relationships, 
authorities, and building flexible and responsive capabilities. We also 
need to protect our warfighting mission, strengthen and expand 
partnerships in the domain, build capability to conduct full-spectrum 
cyberspace operations, and develop processes to integrate cyberspace 
capabilities into COCOM operations and plans.
    Question. What do you believe is the appropriate role for NORTHCOM 
in providing support to civil authorities in the cyber domain in 
relation to U.S. Cyber Command?
    Answer. The Department of Homeland Security (DHS) is the lead 
Federal agency for national cyber security policy and programs. As 
such, the DHS will manage and lead a fully-coordinated response to a 
significant cyber incident to minimize impact, restore operations, and 
reduce the risk of future occurrence of the event or events. DOD 
organizations may be asked to support the federal cyber response, if 
military resources are needed to address the specific situation. 
NORTHCOM's position is that U.S. Strategic Command (STRATCOM) and its 
subordinate sub-unified COCOM, U.S. Cyber Command (CYBERCOM), should be 
in the lead for DOD support to civil authorities for the technical 
aspects of recovery from a cyber attack. CYBERCOM and DHS have 
established a strong relationship for exactly this purpose. NORTHCOM's 
role would be in assisting the DHS in mitigating the physical effects 
of such an event. For example, if a cyber attack disables our Nation's 
electrical grid for an extended period of time, the effects could 
devastating. In such a situation, NORTHCOM could provide transportation 
and other logistical support using military capabilities. STRATCOM, 
NORTHCOM, and CYBERCOM would coordinate closely throughout such an 
event.

         COORDINATION WITH THE DEPARTMENT OF HOMELAND SECURITY

    Question. After the terrorist attacks on September 11, 2001, 
Congress established the Department of Homeland Security, and DOD 
established the NORTHCOM and an Assistant Secretary of Defense for 
Homeland Defense and Americas' Security Affairs.
    What is your assessment of the current level of cooperation and 
coordination between DOD and DHS on homeland security matters, and what 
will be your goals in this regard if you are confirmed?
    Answer. Cooperation and coordination between the DOD and the DHS is 
very strong and constantly improving. DOD staffs are tightly connected 
with the DHS and its component agencies through continued exchange of 
department representatives, to include DOD COCOMs and DHS headquarters 
and subordinate agencies. As the Commander of NORTHCOM, I have directly 
observed and benefitted from such cooperation, notably including close 
partnerships with the Federal Emergency Management Agency, Customs and 
Border Protection, and the U.S. Coast Guard. There continues to be a 
significant increase in the overall collaboration in deliberate and 
crisis action planning, policy decisions, and applicable directives 
impacting homeland security matters. The many correlations in our 
mission sets demand this collaboration. If confirmed, I will help the 
DOD continue to mature and strengthen our relationship with the DHS 
through information sharing, exercises, operations, and planning.
    Question. What do you believe is the appropriate mechanism for DOD 
to respond to the needs of domestic agencies for DOD support--whether 
through new or modified programs within DOD or otherwise?
    Answer. I believe the current Request For Assistance (RFA) 
mechanism for Federal agencies to obtain assistance from the DOD, 
through the exchange of Executive Secretary memoranda, is appropriate. 
The DOD has unique capabilities that have supported domestic agencies 
such as the U.S. Coast Guard and the Department of Interior for the 
Deep Water Horizon oil spill, Federal Emergency Management Agency for 
Hurricanes Gustav and Ike, and the National Interagency Fire Center for 
wildland forest fires. In domestic natural disasters, DOD is always in 
support of a Primary Agency. If confirmed, I will continue to seek ways 
to respond more quickly and effectively to requests from our Federal 
partners, to include expanded use of pre-scripted mission assignments.

                          COMBATING TERRORISM

    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked threats 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    How do you view the Department's role under the new National 
Strategy for Counterterrorism?
    Answer. DOD plays a significant role within the government-wide 
global fight against al Qaeda (AQ) and its adherents primarily through 
partner nation capacity-building and enabling efforts, targeted 
counterterrorism (CT) operations, and countering violent extremist 
messaging. Building competent, professional and responsive CT forces 
that protect populations and strengthen the rule of law reinforces the 
legitimacy of partner governments, creates sustainable security, and 
reduces AQ's ability to establish safe havens. Targeted CT operations 
are focused on eliminating near-term threats, creating space and time 
to develop partner nation capacity, and supporting the development of 
sustainable host nation government institutions.
    Question. Do you believe the National Strategy for Counterterrorism 
modifies the Department's role in combating the threat posed by al 
Qaeda and affiliated groups?
    Answer. The National Strategy for Counterterrorism further codifies 
DOD's priorities and roles as part of the whole of government global CT 
approach. The new strategy is closely aligned with our existing 
priorities and does not significantly modify our ongoing efforts.
    Question. What do you believe is the appropriate role for the 
Department in countering threats from al Qaeda and affiliated groups 
outside of South Asia?
    Answer. Building partner nation capacity and enabling partner 
forces is the primary role for DOD in countering threats from al Qaeda 
(AQ) and affiliated groups. DOD also conducts limited targeted CT 
operations as directed in order to eliminate imminent threats to the 
United States and U.S. interests and to create space and time for the 
very challenging development of enduring host nation solutions to CT 
problems. Building strong and enduring partnerships based upon shared 
understanding of the threat and common objectives is essential for 
success. DOD also supports other efforts led by interagency partners, 
which focus on the development of better governance and supplying basic 
needs, thereby reducing the underlying causes that enable AQ to recruit 
from vulnerable populations.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. The level of interagency coordination that occurs in the 
global CT fight is greater than it has ever been, but must be 
continually emphasized and prioritized. To succeed at both the tactical 
and strategic levels, we must foster a rapid, coordinated, and 
effective CT effort that reflects the full capabilities and resources 
of our whole government. I will continually emphasize the need for 
transparency and interagency communication and prioritize the existing 
NSS-led CT planning and decisionmaking venues.

                SPECIAL OPERATIONS PERSONNEL MANAGEMENT

    Question. Vice Admiral McRaven, USN, Commander of Joint Special 
Operations Command, has argued that the Commander of U.S. Special 
Operations Command (SOCOM) should have greater influence on special 
operations personnel management issues including assignment, promotion, 
compensation, and retention of Special Operations Forces. One proposal 
would modify section 167 of title 10, U.S.C., to change the role of the 
SOCOM Commander from ``monitoring'' the readiness of special operations 
personnel to ``coordinating'' with the Services on personnel and 
manpower management policies that directly affect Special Operations 
Forces.
    What is your view about the authority of Commander, SOCOM in this 
regard?
    Answer. I support the coordination between SOCOM and the Services 
related to personnel issues. To improve this coordination, DOD 
Directive (DODD) 5100.01, ``Functions of the Department of Defense and 
Its Major Components,'' was published in December 2010. Currently, 
subject to the authority, direction, and control of the Secretary of 
Defense, Commander SOCOM, is responsible for, and has the authority 
necessary to conduct, in addition to those specified, all affairs of 
command relating to special operations activities, including: 
coordinate on Military Department and Military personnel management 
policy and plans as they relate to accessions, assignments, 
compensation, promotions, professional development, readiness, 
retention, sustainment, and training of all Special Operations Forces 
personnel. This coordination shall not interfere with the title 10 
authorities of the Military Departments or Military Services.

                SPECIAL OPERATIONS ENABLING CAPABILITIES

    Question. The Commander, SOCOM, has described the ``non-
availability'' of enabling capabilities as SOCOM's ``most vexing issue 
in the operational environment.'' The 2010 Quadrennial Defense Review 
(QDR) sought to balance previously mandated growth in Special 
Operations Forces with additional enabling capabilities.
    What do you believe are the greatest shortages in enabling 
capabilities facing Special Operations Forces?
    Answer. In the recent past, rotary wing lift has been one of the 
special operations community's biggest shortfalls. The Department is 
mitigating these shortages by growing SOF forces through fiscal year 
2015 by several thousand personnel and adding additional rotary wing 
units to SOF.
    Question. Do you believe additional enabling capabilities, beyond 
those mandated by the QDR, are required to support Special Operations 
Forces?
    Answer. It is my understanding that the Services and SOCOM are 
increasing enabling capabilities as mandated by the QDR. The Force 
Sufficiency Assessment should inform our senior leaders in deciding 
whether more enabling capabilities are needed.
    Question. Do you believe the process for Special Operations Forces 
to request enabling capabilities from the Services, when required, 
should be formalized? If so, how?
    Answer. This process is formalized in the Global Force Management 
Board (GFMB) Force Allocation process. COCOMs submit their SOF and 
enabling capability rotational requirements annually through the GFMB. 
The COCOMs also submit their emergent SOF and enabling capability 
requirements as a request for forces through the force allocation 
process.
    Additionally, it is my understanding that SOCOM is incorporating 
SOF-enabler requirements in the Strategic Analysis products, which 
support senior-leader force development decisionmaking, and the 
Services are integrating SOF-enabler support into their Force 
Generation Models.

                      SPECIAL OPERATIONS MISSIONS

    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    Do you believe any modifications to SOCOM's title 10 missions are 
appropriate? If so, what modifications would you suggest?
    Answer. I believe SOCOM's title 10 authorities are structured 
properly and that no modifications are required at this time.

                       INTERAGENCY COLLABORATION

    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from 
interagency collaboration on counterinsurgency and counterterrorism 
operations in Afghanistan, Iraq, and elsewhere?
    Answer. Information sharing, leveraging the strengths of 
interagency partners, and collaboration during the planning and 
execution of operations has led to increasingly successful results. 
Organizationally, the innovation of forming purpose-built task forces 
that draw upon expertise from among the interagency community has 
provided a high level of agility and efficiency in the conduct of 
civil-military operations. The practice of flattened, agile 
communications, extensive senior leader involvement across the U.S. 
Government and allies, and leveraging information dominance provided by 
these subject matter experts and their systems are among our key 
lessons learned.
    Question. How do you believe these efforts can be improved?
    Answer. Preserving the lessons learned of the interagency task 
force in doctrinal publications, properly resourcing future task 
forces, continuing our efforts to raise the state of the art of 
intelligence and operations fusion, and applying the lessons learned in 
future challenges will be among the ways we continue to improve upon 
the many hard fought insights made during the last decade. Our ability 
to address future complex challenges through the application of faster, 
flatter interagency organizations will be key.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. Codifying our work is key. I believe it is critical that 
doctrinal publications such as Joint Pub 3-08, ``Interagency, 
Intergovernmental Organization, and Nongovernmental Organization 
Coordination During Joint Operations'' capture the best practices of 
these horizontal interagency teams.
    Our centers of and joint excellence are charged with making changes 
institutional across the military, and they will do this by integrating 
doctrine, organization, training, materiel, leader development and 
education, personnel, and facilities across all levels of command, from 
Joint Force Commanders to component commands to the unit level.

  CAPABILITIES OF SPECIAL OPERATIONS FORCES AND GENERAL PURPOSE FORCES

    Question. The 2010 Quadrennial Defense Review called for increased 
counter insurgency, counterterrorism, and security force assistance 
capabilities within the general purpose forces. These missions have 
traditionally been within the purview of Special Operations Forces.
    What actions, if any, do you believe need to be taken in order to 
allow special operations and general purpose forces to successfully 
share these missions in the future?
    Answer. I believe the 2010 QDR's strategic shift toward expanding 
general purpose forces' capabilities and capacity for these 
contingencies makes sense. The overall flexibility of our Armed Forces 
can be greatly improved by investing in key enablers within our 
conventional force, such as strengthening and expanding capabilities 
for security force assistance; increasing the availability of rotary-
wing assets; expanding manned and unmanned aircraft systems for 
intelligence, surveillance, and reconnaissance; improving counter-
improvised explosive device capabilities; and enhancing linguistic, 
cultural, counterinsurgency, and stability operations competency and 
capacity.
    Question. Are there certain mission areas that should be reserved 
for Special Operations Forces only?
    Answer. Special Operations Forces are a unique component of our 
U.S. Armed Forces that are trained to conduct operations in areas under 
enemy control or in politically-sensitive environments, including 
counterterrorism, unconventional warfare, direct action, special 
reconnaissance, foreign internal defense, and counter-proliferation of 
weapons of mass destruction. In such environments, Special Operations 
Forces provide a unique and essential capability.

                                 LIBYA

    Question. Do you support the limited U.S. military mission in 
Libya?
    Answer. Yes. We are operating in Libya as a part of an 
international coalition enforcing United Nations Security Council 
Resolution (UNSCR) 1973. Our role is to support and assist our partners 
in preventing the mass killing of innocent civilians in Libya. The U.S. 
military provides unique capabilities to this effort such as electronic 
warfare; aerial refueling, intelligence, surveillance and 
reconnaissance support, and unmanned strike drones. In my view, we 
should maintain pressure until the goals agreed by NATO allies and 
partners are met.
    Question. Do you support broadening the military mission to include 
regime change?
    Answer. The goal of our military effort, and the mandate of the UN 
resolution, is very clear: we are protecting the Libyan people. I 
believe the regime's attacks on its own people will continue unless 
Colonel Qadhafi relinquishes power, and that such attacks will 
dramatically increase if pressure is removed. To this end, while to my 
knowledge forced regime change is not specified in the military 
mission, this mission complements other instruments of power and will 
add significant pressure on Colonel Qadhafi over time to step down.
    Question. Do you believe the United States should provide arms and 
training to the Libyan rebels?
    Answer. Since the purpose of our military action is grounded in 
UNSCR 1973, which specifies protection for the Libyan people in 
population centers like Benghazi from a massacre at the hands of 
Colonel Qadhafi's forces, any such assistance should be for that 
purpose. Because this is not a unique U.S. capability, and we are 
heavily engaged in other locations, I believe other countries should be 
the first to provide such assistance.

                              ARAB SPRING

    Question. The Arab Spring has changed--and will likely continue to 
change--the political and military dynamics in the Middle East and 
North Africa for many years to come. These changes may require the 
United States to adjust our military-to-military and defense civilian 
relations engagements in this region.
    In your personal view, what adjustments--if any--should be made to 
U.S. military-to-military and defense civilian relations in the region?
    Answer. It is clear this is a moment of profound transformation and 
change in the Middle East and North Africa. People in this region seek 
greater individual rights, political reform, and economic 
opportunities. These calls for reform are gaining momentum across the 
region and are likely irreversible. Although we can expect instability 
as this region transforms, we have a unique opportunity to support 
these reform movements through our military relationships.
    Military-to-military relationships offer important policy influence 
opportunities with our partners. We have very strong relationships with 
our military partners in the region, which has helped us keep pace with 
the transitions and to be in position to offer advice and assistance. A 
good example of this is our relationship with the Egyptian Military and 
their Supreme Council of the Armed Forces (SCAF). Throughout the 
political transition in Egypt, we have kept in close contact with Field 
Marshall Tantawi (Minister of Defense), Lieutenant General Enan (Chief 
of Defense Forces) and other members of the SCAF. These personal 
relationships have allowed us to engage on behalf of the U.S. 
Government and keep track of the events in Egypt.
    Although our military relationships throughout the region are 
strong, these reform movements give us an opportunity to review our 
security cooperation and assistance policies to ensure they support and 
complement these democratic transitions. We are working closely with 
OSD and our COCOMs to review our programs and policies and ensure they 
help our partners continue to develop military forces that respect the 
rule of law and human rights.

          STRATEGIC COMMUNICATIONS AND INFORMATION OPERATIONS

    Question. Over the past decade, DOD has funded an increasing number 
of military information support operations and influence programs. 
While the Department does not have any separate budget documentation 
outlining its strategic communication activities, GAO reports that DOD 
``spent hundreds of millions of dollars each year'' to support its 
information operations outreach activities. Many of these programs are 
in support of operations in Iraq and Afghanistan, but Military 
Information Support Teams (MISTs) from SOCOM are also deploying to U.S. 
embassies in countries of particular interest around the globe to 
bolster the efforts of the Department of State and the U.S. Agency for 
International Development. Further, the geographic COCOMs--at the 
theater and regional level--are moving into this operational space.
    What are your views on DOD's military information support 
operations and influence programs?
    Answer. DOD communication strategy and the unique capabilities of 
Military Information Support Operations play an important role in DOD 
communications efforts. I view Military Information Support Operations 
as traditional military activities that a global combatant commander 
uses to support Theater Security Cooperation and underpin the essential 
shaping operations required to support achievement of Theater Campaign 
Plan objectives, and (if needed) contingency operations in an area of 
hostilities. Influence programs and activities are one method by which 
DOD can support U.S. foreign policy objectives. In a world dominated by 
information purveyors and consumers, information-related capabilities 
have grown significantly in importance. Through Military Information 
Support Operations, we have a tremendous opportunity to shape the 
environment in support of a broad range of activities to include 
security cooperation and deterrence efforts. At the same time, it is 
critical that such activities be conducted in a synchronized manner 
with other U.S. Government departments.
    Question. What was your experience with these types of operations 
in your capacity as the Commander of NORTHCOM?
    Answer. NORTHCOM uses multiple communication methods to reach 
audiences outside the borders of the United States that are within our 
area of responsibility. We have used web sites, magazines, personal 
engagements, and blogs as tools, and have worked hard to improve 
internal DOD (and to some extent, external) understanding of the best 
ways, including the most appropriate messages, to communicate publicly 
about our partnership with Mexico, in particular. These operations are 
vital tools for enhancing military-to-military relationships and 
achieving our Theater Campaign Plan goals. Of course, these have to be 
well-integrated with other U.S. agencies, the Country Teams, and 
neighboring global COCOMs to ensure a whole-of-government effort.
    Question. In your view, are DOD's programs adequately integrated 
into overall U.S. foreign policy activities?
    Answer. Every effort is made to integrate DOD programs into U.S. 
foreign policy activities. A ``whole-of-government'' approach is 
critical in achieving U.S. foreign policy objectives. DOD's information 
and influence activities support DOD policy guidance and military 
objectives established by a theater's combatant commander. Activities 
conducted outside areas of hostility are often led by and always 
coordinated with our interagency partners. Activities conducted inside 
areas of hostility are similarly coordinated when they touch other 
activities of the U.S. Government or other activities of partner 
nations.
    Question. In 2005, al Qaeda's Ayman al-Zawahiri declared that ``We 
are in a battle, and more than half of it is taking place in the 
battlefield of the media.'' Last year, a non-partisan study highlighted 
the lack of a U.S. strategy to counter radical ideologies that foment 
violence.
    In your view, what are the appropriate roles of DOD, the 
Intelligence Community (IC), and the State Department in information 
operations to counter violent extremist ideology?
    Answer. Ultimately, it is our collective actions that send the 
strongest messages to populations across the globe regarding radical 
ideologies and extremist groups. However, DOD also works closely with 
the CIA, the Department of State (principally its Center for Strategic 
Counterterrorism Communications), and the National Counterterrorism 
Center, in an interagency effort to coordinate programs and deconflict 
activities aimed at delegitimizing radical extremist ideology and its 
messages. The respective roles of all government departments and 
agencies involved in this campaign are defined by their legal 
authorities, institutional functions, and operational capabilities. 
DOD's global presence and outreach opportunities enable it to engage 
with local populations and develop relationships with credible 
interlocutors to counter the messaging and discredit the appeal of 
violent extremist movements.
    Question. In your view, what is the most effective means to counter 
radical ideologies that foment violence?
    Answer. I believe that the most effective means to counter radical 
extremist rhetoric is through delegitimizing the leaders and ideology 
behind it to the point that these movements collapse under the weight 
of their own contradictory messages and actions. This is a war of ideas 
and ideals, and optimally moderating ideas are communicated by local 
voices. Our activity in this area must be persistent and long-term, 
focused foremost on clearly communicating our strategic narrative--our 
national interests, values, and policies--through both words and 
actions. An essential component of this effort is an adaptive 
communication framework that enables leaders at all levels to send 
coherent messages through credible messengers to key audiences using 
mediums that resonate at the right time. Our overarching objective is 
to truthfully and consistently demonstrate the efficacy of our policies 
and values, influencing our intended audiences to challenge and 
ultimately reject the sociopathic inducement to terrorism and violence 
that radical Islamist ideologies propagate.
    Question. Defense Secretary Gates launched the Minerva Program in 
2009 to develop deeper social, cultural, and behavioral expertise for 
policy and strategy purposes in the Middle East and the Far East. What 
do you believe this program contributes to broader DOD and U.S. 
Government efforts to counter violent extremist groups and their 
ideologies?
    Answer. Although I've not had an opportunity to be closely 
associated with the Minerva program, I fully endorse the imperative of 
understanding the perceptions, attitudes, ethnic identities, religious 
beliefs, and predispositions of the audiences we seek to reach. Indeed, 
in my role as the NORTHCOM Commander, I have found that our efforts 
with Mexico have benefitted in proportion to the degree to which we 
understand Mexican outlooks and sensitivities. The same applies in 
other parts of the world. Commanders and leaders at all levels need to 
appreciate not only how radical Islamist ideology and its messages 
resonate with its intended audiences, but how their own words and 
actions are processed through foreign cultural receptors. Our ability 
to effectively challenge the legitimacy of violent extremist groups 
depends on our appeal to the core interests and values of our target 
audiences, and that requires an in-depth understanding of their 
perspectives.

                  EAST AFRICA--AL QAEDA AND AL SHABAAB

    Question. Somalia is a failed state with a weak government unable 
to project either power or stability or to provide basic services to 
its people. Somalia is also a training and operations hub for al 
Shabaab and other violent extremists; pirates operating in the Indian 
Ocean and Arabian Peninsula; illicit traffickers of weapons, humans, 
and drugs; and remnants of the al Qaeda East Africa cell that was 
responsible for the destruction of our embassies in Dar es Salaam and 
Nairobi in August 1998.
    What is your assessment of the threat posed by al Qaeda and al 
Shabaab to the U.S. and Western interests in East Africa and to the 
U.S. Homeland?
    Answer. I anticipate al Shabaab is planning to conduct attacks 
against U.S. interests in East Africa. I also expect the May death of 
al Qaeda emir Osama bin Laden increased al Shabaab's planning against 
U.S. targets in East Africa, despite its primary focus on internal 
Somali issues, which include repelling a regionally-backed Transitional 
Federal Government (TFG) and African Union Mission in Somalia (AMISOM) 
offensive. I further expect al Qaeda associated al Shabaab foreign-
fighters will continue planning attacks against U.S. and Western 
targets. I remain concerned that individuals who successfully travel to 
Somalia and receive training from al Shabaab could become further 
radicalized and return to the United States to conduct operations 
without al Shabaab's guidance
    Question. What is your understanding of DOD's role in countering 
the threat posed by al Qaeda in East Africa and al Shabaab?
    Answer. Al Qaeda has clearly set their sights on this region as 
potential safe haven from which to plan and to train for future attacks 
both within and outside the region. I am increasingly concerned about 
as well as about al Qaeda's growing influence on and near the Arabian 
peninsula, including al Shabab's growing ties to al Qaeda and its 
transregional ambitions.
    As we do elsewhere, we have provided--and congressional support 
will continue to provide--assistance to regional partner nation forces 
to counter threats from violent extremists in East Africa. DOD assists 
these efforts in concert with interagency partners, by focusing our 
approach on populations, security capacity, and basic human needs. Some 
of that support is also aimed directly at improving counter-terrorism 
capabilities. I cannot get into the specifics about operations we are 
supporting, but the work remains critical to our goal of disrupting and 
dismantling al Qaeda and their affiliates, and is having a significant 
impact on the terror network's leadership, planning and resourcing 
efforts.
    Question. What is your understanding of DOD's supporting role to 
other departments and agencies of the U.S. Government in this region?
    Answer. DOD supports other U.S. department and agency efforts in 
the region, such as the Department of State and the U.S. Agency for 
International Development through the Combined Joint Task Force-Horn of 
Africa (CJTF-HOA) in Djibouti. The CJTF-HOA's mission in the East 
Africa region is to build partner nation capacity in order to promote 
regional stability, prevent conflict, and protect U.S. and coalition 
interests. These activities directly support each country team's 
objective of good partner nation governance by focusing on improving 
its security institutions' professionalism and commitment to human 
security. As part of the overall ``3-Ds'' whole-of-government 
approach--Diplomacy, Development, and Defense--the CJTF-HOA's role is a 
long-term commitment to regional stability through population-centric 
activities that strengthen both internal and international counter-
violent extremist organization relationships.
    Question. What changes, if any, would you recommend to DOD's 
current role in East Africa?
    Answer. I believe we must view Somalia from a regional East Africa 
perspective, not least because most of the U.S. Government's 
traditional security cooperation tools are restricted from being used 
in Somalia. I understand that DOD is reviewing the status of Joint Task 
Forces to determine if any should transition to more permanent Joint 
Interagency Task Forces. In addition, U.S. Africa Command is looking at 
how best to direct our military efforts in the region to work in 
concert with our interagency partners. The ultimate goal is a strategy 
under which security assistance, capacity building, cooperation with 
regional partners, and counterterrorism actions are fully integrated to 
provide security and stability in East Africa.

              YEMEN AND AL QAEDA IN THE ARABIAN PENINSULA

    Question. A number of senior U.S. officials have indicated the most 
significant threat to the U.S. Homeland currently emanates from Yemen.
    What is your assessment of the current U.S. strategy in Yemen and 
what is your understanding of the role of DOD within that strategy?
    Answer. The current strategy in Yemen, as outlined in the State 
Department's fiscal year 2011 Mission Strategic Plan, remains our best 
option for achieving a stable Yemen, one in which violent extremists 
cannot operate. The near-term goal of containing and degrading al Qaeda 
in the Arabian Peninsula (AQAP), while pursuing long-term initiatives 
to create a stable Yemen that can provide internal security, remain 
valid.
    DOD's role within this strategy is two-fold. First and foremost, 
U.S. Central Command works with interagency partners to build Yemen's 
counterterrorism (CT) capacity and enhance CT partnerships. Separately, 
select elements work with the Yemeni Government to disrupt near-term 
threats to the U.S. Homeland. This effort is intended to provide time 
and space for the Yemeni security forces to increase their 
effectiveness and eventually eliminate Yemen as an al Qaeda safe haven.
    Question. Given the ongoing political upheaval and splintering of 
the military in Yemen, what are your views on the United States 
continuing to provide security assistance--most significantly DOD 
section 1206 funding--to Yemeni counterterrorism forces?
    Answer. My understanding is that, given the growing AQAP presence 
in Yemen, its threat to the Homeland, the ongoing unrest that has 
already weakened the Yemeni Government and the economy and allowed AQAP 
to expand its influence, we continue to closely evaluate our security 
assistance programs in Yemen--particularly those provided under section 
1206. The Republic of Yemen Government currently remains a critical 
partner in the war against al Qaeda, and we remain particularly alert 
to the continued and growing threat to the Homeland from AQAP. I 
understand that we believe the likelihood of continued counterterrorism 
cooperation with the Yemeni Government will remain high during and 
after any future political transitions, but are prepared to reevaluate 
our partnership as necessary to address the changing military 
situation.

           DEPARTMENT OF DEFENSE COUNTERNARCOTICS ACTIVITIES

    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent GAO report, GAO found that DOD ``does not have an effective 
performance measurement system to track the progress of its 
counternarcotics activities.'' This is the second such finding relating 
by GAO to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. Drug trafficking and associated organized crime are a 
multi-dimensional threat to the United States. In addition to the 
impact on our Nation's public health and economy, drug trafficking and 
other forms of transnational organized crime provide a funding source 
for terrorists and insurgents, undermine legitimate government 
institutions, and contribute to international instability.
    As the Commander of NORTHCOM, I have had the opportunity to work 
with the DOD's interagency and foreign partners to ensure that our 
counternarcotics programs achieved positive results that were aligned 
with the goals of the National Security Strategy and the National Drug 
Control Strategy. If confirmed, I look forward to applying my 
experience in North America to the global DOD counternarcotics program.
    Question. In your personal view, should DOD continue to play a role 
in stemming the flow of illegal narcotics?
    Answer. Based on my experience, confronting this issue requires 
that all agencies work closely together to confront the flow of illicit 
narcotics. This whole-of-government approach has been critically 
important to the progress we have made since the 1980s and should 
continue. While the effort should largely be led by law enforcement, 
DOD has unique capabilities to bring to bear to this important effort. 
Moreover, DOD's existing partnerships with countries throughout the 
world can help support U.S. Government efforts to confront this 
problem.
    Question. In your position as the Commander of NORTHCOM, what was 
your assessment of the DOD CN program as it related to Mexico and the 
Caribbean?
    Answer. The DOD CN program is critical to the success of NORTHCOM 
efforts in both Mexico and the Caribbean. Resourcing has improved over 
the last year, which has considerably improved our ability to assist 
our Mexican partners in their struggle against TCOs. Mexican security 
organizations are gradually transforming from a force principally 
focused on natural disasters into one able to integrate intelligence 
and operations in support of law enforcement operations that fully 
respect human rights and the rule of law. Counternarcotics funding is a 
key enabler of that effort. Recognizing that the threat posed by TCOs 
extends well beyond drugs, and that there are complex challenges 
associated with defeating them, future increased collaboration with 
mission partners and adequate resourcing are essential.
    Question. In your position as the Commander of NORTHCOM, were there 
any activities that you had hoped to be able to conduct using DOD CN 
funding, but were not able to do and that you, if confirmed, would 
recommend DOD seek the authority to conduct?
    Answer. Current authorities are appropriate and sufficient for 
successful execution of the NORTHCOM counternarcotics mission and the 
support we provide to our mission partners. Should I be confirmed, and 
should my view change based on the evolution of our relationship with 
regional partners or the perspectives I gain as Vice Chairman of the 
Joint Chiefs of Staff, I will work with the Committee to suggest 
potential improvements.

                INTERNATIONAL PEACEKEEPING CONTRIBUTIONS

    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both staff positions and military observers 
in support of U.N. peacekeeping operations?
    Answer. In my previous duty as director for Strategic Plans and 
Policy on the Joint Staff, I had the privilege of concurrently serving 
as senior member of the U.S. delegation to the U.N. Military Staff 
Committee. In that role, I gained a first-hand appreciation of the 
valuable contributions our members make in support of U.N. peacekeeping 
missions. Keeping in mind our continuing troop commitments in Iraq and 
Afghanistan, I believe the United States can and should consider 
assigning a modest number of additional personnel to peacekeeping 
missions. Even in small numbers, U.S. members make a special 
contribution to these activities by virtue of their experience, 
training, and special skills.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. Some of the compelling benefits of providing U.S. personnel 
to these missions include:

        <bullet> Delivering combat-tested expertise in logistics, 
        intelligence, planning, and other key military functions where 
        they are most needed;
        <bullet> Providing our members with valuable experience in 
        working shoulder to shoulder with international troops--a 
        critical skill at the heart of our operations in Afghanistan, 
        Iraq, and elsewhere; and
        <bullet> Sending an unmistakable signal that the United States 
        values U.N. peacekeeping operations--and because they are far 
        more cost-effective than unilateral American interventions.

    Among potential disadvantages, I would cite our significant troop 
commitments to Iraq and Afghanistan, which take priority and continue 
to subject our force to stress. I would also point out that, in some 
cases, U.S. personnel on the ground are not what a U.N. mission most 
needs. Local sensitivities will sometimes lead us to contribute to 
peacekeeping in other, less visible ways.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. The personnel management systems of our armed services do 
not perfectly align with the needs of multinational organizations like 
the United Nations. If confirmed, I would explore alternate mechanisms 
to respond to the requests of these institutions within the demands of 
our ongoing operations elsewhere in the world. In particular, we should 
examine how our Reserve components, whose personnel have recently 
delivered specialized, hard-to-find skills to Iraq and Afghanistan with 
such distinction, can make a greater contribution in this area.

                   GLOBAL PEACE OPERATIONS INITIATIVE

    Question. The Global Peace Operations Initiative (GPOI) was 
established after the 2004 G8 Sea Island Summit to address growing gaps 
in international peace operations. In most cases, DOD plays a 
supporting role in the implementation of this train and equip program.
    What is your understanding and assessment of this program?
    Answer. GPOI is an important part of our government's strategy to 
build the capabilities of U.S. partners in peacekeeping operations. 
Through comparatively small investments in training and equipment, we 
can help those countries that want to contribute to peacekeeping 
operations. Over 80,000 military personnel have been trained under GPOI 
since 2005--a significant achievement. I also consider GPOI to be a 
strong example of the results we obtain when the Departments of State 
and Defense collaborate to promote our Nation's security.
    Question. Would you support additional DOD contributions--in the 
form of U.S. military trainers--to support this program?
    Answer. From my perspective, GPOI has been successful in building 
partnership capacity because of its flexibility. The program has given 
our combatant commanders the freedom to tailor assistance to the 
specific needs of individual partners. If confirmed, I would consider 
recommending provision of additional military trainers under the GPOI 
program subject to the demands of our other operations overseas.

                         COUNTER THREAT FINANCE

    Question. A number of officials in DOD and the IC have called for 
investing significantly more resources in identifying and tracking the 
flow of money associated with terrorist networks and illicit 
trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Terrorists, drug and weapons traffickers, and other 
adversaries rely heavily on legal and illegal funding sources to 
support their activities, which routinely work against U.S. interests. 
It is critical to engage all U.S. Government tools to track and halt 
the flow of money associated with these organizations. It is my 
understanding that DOD has capability to identify and disrupt our 
adversaries' finances while working with our interagency counterparts 
both in countering terrorism and illicit trafficking. Counter Threat 
Finance is a cost-effective measure because both licit and illicit 
finances are often exposed through Western banking and customs 
processes and are subsequently vulnerable to interdiction, sanctions, 
and other law enforcement action. DOD is not the U.S. Government lead 
agency in counter threat finance but, it plays a supportive role by 
working with other departments and agencies--and with partner nations--
to counter our adversaries' ability to use global financial networks.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities?
    Answer. Recent DOD efficiencies decisions directed the creation of 
a Joint Threat Finance Intelligence Office to consolidate the counter 
threat finance intelligence functions resident in the Department, and 
this new office is expected to be operational in fiscal year 2012 under 
the direction of the Defense Intelligence Agency. Although this effort 
does not seek to expand DOD's role in CTF, it is my opinion that it 
streamlines the DOD's efforts with the intent of improving support to 
other U.S. departments and agencies.
    Question. TCOs in Central America and Mexico are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people.
    Do you think expanded Counter Threat Finance activities in this 
region would be beneficial? If so, what role--if any--should DOD play 
in those activities?
    Answer. Expanding the scope and scale of counter threat finance 
activities in the Central and North American regions would be 
beneficial, and DOD has a strong supporting role in those activities. 
NORTHCOM and U.S. Southern Command (SOUTHCOM) are helping to shape and 
leverage unique capabilities in support of our foreign and domestic 
mission partners. Rather than attempting to conduct this mission in 
isolation, the correct approach is to understand the unique 
intelligence analysis capability that DOD can bring to this effort and 
then leverage it in support of other lead agencies, such as the 
Treasury Department. This will enable all stakeholders to achieve unity 
of effort in gaining leverage against potentially significant TCO 
vulnerability.

                       CENTRAL AMERICA AND MEXICO

    Question. During a recent Senate Armed Services Committee hearing, 
the Commander of SOUTHCOM and you--in your capacity as the Commander of 
NORTHCOM--discussed the increasingly dangerous region along the 
northern and southern borders of Mexico and the devastating impact TCOs 
are having on the people and security of southern Mexico, Guatemala, 
Belize, Honduras, and El Salvador. The United States has increased its 
assistance in this region, but--to date--DOD has had only a small role.
    What are your views on the threats posed by TCOs in this region?
    Answer. The corrosive effects of TCO-fostered drug abuse are taking 
an increasingly severe toll on our economy and our human capital. The 
presence of TCO distribution networks in many of our cities increases 
the scale and complexity of gang activity in our urban areas. The 
pervasive activity and influence of TCOs among our friends and 
neighbors in North and Central America are directly and negatively 
impacting their prosperity and security--to include increased violence, 
decreased real economic activity, and increased drug abuse--which 
carries its own indirect impact on the United States. The TCOs are 
vicious in the extreme, better-armed than many police forces, very 
well-financed, diversified, and increasingly adaptable and 
sophisticated in their methods. Their criminality extends far beyond 
drugs to extortion, robbery, kidnapping, trafficking in firearms and 
persons, and many other illegal activities. Currently, TCOs are using 
military grade equipment and tactics, including sophisticated assault 
weapons, sniper rifles, grenades, aircraft, improvised armored 
vehicles, and even submarines to move illegal drugs.
    Question. What is your assessment of DOD's current activities in 
Mexico and Central America?
    Answer. I believe that DOD's current activities in Mexico and 
Central America are having a positive impact. The scope and depth of 
our military-to-military relationships with most regional nations, 
including Mexico, have reached unprecedented levels. While continuing 
to emphasize the importance of the sovereignty of regional nations, 
NORTHCOM and SOUTHCOM have dramatically increased senior level 
interactions, subject matter expert exchanges, human rights training, 
mobile training teams, intelligence support, and exercises. Within the 
NORTHCOM area of responsibility, while Mexico deserves great credit for 
its own work, we are beginning to see the positive effects of our 
support, to include more Mexican emphasis on intelligence-operations 
fusion, greater tactical proficiency, jointness, and willingness to 
work with interagency partners. These nations' security forces are 
often out-gunned by the TCOs, but they are making progress on all 
fronts in their ability to confront the serious threat of TCOs.
    Question. What changes, if any, would you recommend to DOD's 
current activities in this region?
    Answer. I believe we need to further tighten the already-close 
cooperation among U.S. Government agencies, to include a willingness to 
expose regional militaries--beginning with Mexico--to more of the 
lessons learned and capabilities we have used overseas in the past 
decade. In so doing, we need to continually reinforce the need to fully 
respect the sovereignty of our partner nations. We should also support 
in any way we can the parallel activities that fall under other 
departments' missions, such as strengthening justice institutions and 
building strong and resilient communities. Counter threat finance is an 
area we could better exploit to disrupt the funding streams fueling the 
TCOs. Finally, I have always believed we are better able to support 
observance of human rights by building close partnerships with our 
partners' forces. Our activities in supporting human rights training 
have been highly successful and I would support more engagements of 
this type as requested by partner nations, and more freedom to interact 
with nations that have troubled histories in human rights.
    Question. If DOD expands its activities in Mexico and Central 
America, where--in your view--can U.S. assistance have the greatest 
impact?
    Answer. The greatest DOD impact will be felt in increasing regional 
militaries' ability to conduct effective intelligence-driven 
operations--that are fully meshed with law enforcement and that respect 
human rights and democratic ideals--against the TCOs. This will involve 
assisting them in improving their ability to integrate intelligence and 
operations at the highest levels of proficiency while fully respecting 
their sovereignty in the process.
    Question. What is your assessment of the current situation along 
the border of the United States and Mexico?
    Answer. I believe we have made significant progress in securing our 
southwest border over the past couple years. As a nation, we have 
joined forces with our Mexican partners in dedicating increased 
manpower, technology, and infrastructure to counter the corrosive 
effects of TCOs, and we are seeing positive results. Seizures of 
contraband (illicit drugs, weapons, and bulk cash) have risen, illegal 
immigration attempts have decreased, and crime rates in southwest 
border communities have remained steady or dropped in recent years. In 
spite of this progress, I remain concerned about TCO-related violence 
in Mexico and the potential for spillover violence in the United 
States. If confirmed, my intent is to continue DOD's strong support of 
our law enforcement partners to enhance their efforts to make the 
southwest border even more secure.
    Question. What changes, if any, would you recommend to the 
Department's support to civilian agencies operating along the southern 
border?
    Answer. DOD support to civilian agencies operating along the U.S. 
southern border has a long history of collaboration and is on the rise 
as NORTHCOM and our Federal partners seek additional opportunities to 
partner. Through Joint Task Force North, NORTHCOM provides a wide array 
of training, assistance, and resources to support our partner agencies' 
efforts. NORTHCOM has made progress over the past year through closer 
collaboration at senior leadership levels (to include our first-ever 
staff talks with Customs and Border Protection (CBP) senior 
leadership), increased agency presence (including CBP, Immigration and 
Customs Enforcement, Drug Enforcement Administration and others) in 
NORTHCOM headquarters, increased agency participation in planning, 
exposure to CBP of tactics and techniques the DOD has accumulated 
overseas, and direct provision of support. If confirmed, I will 
emphasize the need to understand partner agency plans, priorities, and 
concerns to aid the DOD in identifying areas where we can provide 
additional support to these agencies within DOD's authorities and 
capabilities.

                      U.S. ASSISTANCE TO COLOMBIA

    Question. Since fiscal year 2000, the United States has provided 
more than $7 billion to support Colombia's efforts to counter the 
threat of narcotics and various insurgent groups.
    In light of budget conditions, do you believe more significant 
reductions in U.S. security assistance to Colombia are advisable?
    Answer. A significant reduction in U.S. assistance to Colombia 
would be ill-advised at this critical juncture of Colombia's fight 
against TCOs and insurgent groups. Unquestionably, Colombia has made 
great strides, enabled by U.S. assistance, in its effort against TCOs 
and the illicit drug trades that feeds them. However, the Colombians 
have not defeated this threat. Any precipitous drop beyond the United 
States and Colombia coordinated and synchronized glide path reductions 
in our assistance is likely to inhibit achievement of a final 
negotiated settlement.

                                  IRAN

    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the Middle East region?
    Answer. Nearly every source of instability or other challenge in 
the Middle East--including support for terrorism, threats to the 
internal stability of regional nations, weapons proliferation, mischief 
in Iraq and Afghanistan, and overt and covert threats to Israel--may be 
traced in some manner back to Iran. We should encourage Iran to take 
its rightful place in the international community as a force for peace, 
stability, and prosperity in the Middle East. Until that occurs, 
however, every element of national and international power should be 
brought to bear to pressure Iran to change its behavior. Among other 
possible actions, these elements include:

        <bullet> Diplomacy to maintain international resolve and 
        overcome objections from both major states and non-aligned 
        nations to taking firmer action, as well as continued attempts 
        to engage Iran in responsible dialogue;
        <bullet> Economic sanctions to place greater pressure on all 
        sectors of Iran's government;
        <bullet> Financial sanctions on individuals within Iran who 
        support activity such as weapons proliferation, terrorist 
        activity, and support for groups that target U.S. forces;
        <bullet> Intelligence sharing to bring Iran's activities into 
        sharper focus;
        <bullet> Coherent information strategies to expose Iran's 
        destabilizing behavior to the world at large;
        <bullet> Law enforcement to curtail criminal activity on the 
        part of Iranian surrogates and proxies;
        <bullet> Close cooperation with regional militaries to ensure 
        Iran is aware that aggression will be met by a capable and 
        coherent response; and
        <bullet> Continued presence of U.S. forces in the region to 
        bolster our partners and deter Iran from taking irresponsible 
        action.

    Question. Do you believe that a protracted deployment of U.S. 
troops in Afghanistan, beyond 2014, would increase, decrease or have no 
effect on Iran's influence in the region?
    Answer. I do not believe a protracted U.S. deployment in 
Afghanistan after 2014 would measurably change Iran's influence in the 
region. Because such a deployment would serve as an irritant to Iran, 
that nation would support any group in Afghanistan that resists U.S. 
presence, but this influence would not likely extend far beyond 
Afghanistan. Should Afghanistan achieve greater stability, it is 
possible that Iran's influence could slightly decrease. On the other 
hand, Iran could claim some sympathy within the region under the banner 
of U.S. occupation.
    Question. In your view, does Iran pose a near-term military threat 
to the United States by way of either its missile program or its 
nuclear program?
    Answer. Iran openly states its intent to use its missile program as 
a deterrent against the United States as well as Israel and other 
regional nations. Iranian research, development, and testing continues 
for short and medium-range missiles, along with its pursuit of an anti-
ship ballistic missile capability. These systems pose a near-term 
threat to U.S. forces in the Middle East, including in the Arabian Gulf 
region, as well as a threat to our vital interests in the region.
    In the near- to mid-term, Iranian space program advancements 
include dual-use technologies that can be applied to development of 
long-range ballistic missiles that could carry a nuclear warhead. Iran 
also continues to pursue activities to improve its ability acquire 
nuclear weapons. Iran continues to enrich uranium at the Natanz 
facility in violation of U.N. Security Council resolutions, and has 
announced its intent to build additional enrichment facilities. In 
June, Iran announced it would triple its production of 20 percent 
uranium enrichment at the previously covert Qom enrichment facility by 
the end of this summer. Additionally, the International Atomic Energy 
Agency continues to assert that Iran has not provided sufficient 
answers to the possible military dimensions of their nuclear program.
    Question. If you believe either of these programs pose a near-term 
threat, what in your view are the best ways to address such a threat?
    Answer. For the near term, we should deter Iran by continuing 
robust regional security cooperation efforts in the Middle East region, 
to include assistance and cooperation efforts with the Gulf States, 
Iraq, Israel, Saudi Arabia, and other allies and partners. This would 
include continuing our commitment to air and ballistic missile 
defenses, shared early warning systems, counterterrorism, and counter-
piracy programs, as well as programs to build partner capacity and 
protect critical infrastructure. Iran should have no doubt that we are 
committed to regional stability--we should thus maintain presence in 
the region to reassure our partners and persuade Iran that aggressive 
actions will come with a high cost.
    An Iran with a nuclear weapon is extremely destabilizing and could 
precipitate a nuclear arms race in the region. I support the current 
U.S. position--that we cannot accept Iranian acquisition of a nuclear 
weapon. We should maintain a robust international consensus using all 
elements of power, including robust sanctions and targeting the 
finances of those involved in Iran's nuclear program, to place pressure 
on Iran to reject its nuclear program and its other destabilizing 
activities.
    Question. Other than nuclear or missile programs what are your 
concerns, if any, about Iran?
    Answer. Malicious Iranian activities throughout the region include 
the use of proxies to extend Iranian influence into sovereign nations 
by providing increasingly sophisticated weapons, training, and finance. 
We are concerned Iran's activities will negatively impact stability and 
erode the regional economy. It is important to maintain and strengthen 
our relationships with our regional partners and allies by continuing 
to build their security capacity.
    Additionally, Iran supports Shia militant groups whose attacks on 
U.S. forces in Iraq are increasing in frequency, scope, and lethality. 
Asaib Ahl al-haqq's recent attack (15 June 2011) is an example of 
increased lethality based on Iranian technological partnerships.
    Meanwhile, Iranian mischief elsewhere in the region continues. They 
have supported the Taliban with weapons shipments to enable Taliban 
attacks against U.S. and coalition forces in Afghanistan. Iranian 
support to Lebanese Hizballah and Syria directly counters U.S. 
interests regionally and threatens Israel. Finally, the Iranian 
Revolutionary Guard Corps Navy has the ability to threaten shipping in 
the Strait of Hormuz. In Iran's recent Noble Prophet 6 exercises, Iran 
publicly stated that their intent was to demonstrate the ability to 
attack U.S. naval forces with anti-ship missiles.

                       U.S. RELATIONS WITH RUSSIA

    Question. U.S. relations with Russia, although previously strained 
over a variety of issues, have recently improved in some areas.
    If confirmed, do you believe that there are any opportunities to 
improve relations through military-to-military programs, or other 
actions that you would recommend be taken?
    Answer. We have already taken many positive steps to improve 
military-to-military relations between the United States and the 
Russian Federation, and we will continue to pursue improved relations 
in the future. Following the creation of the Military Cooperation 
Working Group in January 2010, we held several joint exercises, 
exchanges, and working group meetings to improve cooperation and 
transparency between our two countries. To illustrate, during 2010, 
NORTHCOM and NORAD held a joint field training exercise that 
demonstrated the ability of our forces to work together against 
airborne terrorist activities (Vigilant Eagle 2010). In my view, we 
have more work to do in order to make these types of exchanges more a 
matter of routine and less transactional. However, I look forward to 
continued exchanges and dialogue between the United States and Russia, 
which will help formulate and reinforce the trust and respect necessary 
to promote continued cooperation and increased transparency between our 
two nations.
    Question. In January of this year you indicated that you would like 
to open a dialogue with Russian military officials and that you would 
welcome the opportunity to host a Russian counterpart.
    If confirmed, would you still welcome dialogue with your Russian 
counterpart?
    Answer. Yes. As the NORTHCOM Commander, I have hosted several 
Russian delegations, and I strongly believe such exchanges can improve 
our communications and understanding and enhance our mutual security. 
Although there is no direct counterpart to the Vice Chairman's position 
on the Russian General Staff, I welcome engagement on behalf of the 
Chairman with the Chief of the General Staff and with other members of 
the General Staff.
    Question. What issues do you consider to be most important to 
address?
    Answer. We have made great strides over the last year on improving 
the formal lines of communication between the U.S. and Russian 
militaries. Our communications must remain candid and constructive to 
ensure continued cooperation in areas such as the Northern Distribution 
Network in support of the Afghanistan effort and to close gaps in 
mutual understanding in areas such as missile defense. We should 
continue to cooperate on combating terrorism and piracy, and there is 
room for discussions regarding cyber security. Perhaps most 
importantly, we should make greater strides in establishing routine 
contact between many different levels of our military forces, as such 
contacts build trust and confidence and grow future leaders who will be 
on a familiar basis with their partners. However, this will require 
greater willingness on the part of the Russian Federation Armed Forces 
to allow such communication.

                     INTEGRATION OF SPACE PROGRAMS

    Question. What is your view on the need to institute a more 
integrated approach to both the military and intelligence sides of the 
space community?
    Answer. I agree with the need to better integrate military and 
intelligence space capabilities. Members of both communities 
participate in a number of joint forums and I believe that progress is 
being made. We are jointly developing programs, and at senior levels 
have very integral relationships. However, when the needs of either 
side diverge to the extent that solutions impose impractical cost on 
the government, consideration should be given to potential independent, 
but complimentary solutions.

                        SPACE PROGRAM MANAGEMENT

    Question. In many instances the military and intelligence space 
programs have experienced technical, budget, and schedule difficulties. 
In some instances these difficulties can be traced to problems with 
establishing realistic, clear, requirements and then maintaining 
control over the integrity of the requirements once established. If 
confirmed as chairman of the JROC you will be involved in determining 
these requirements.
    How in your view can or should the space systems requirements 
process be improved?
    Answer. If confirmed, I will ensure that space system requirements 
process improvements are considered within the context of the Joint 
Capability Integration and Development Systems (JCIDS) process review 
in collaboration with the Director of National Intelligence.
    Question. In general, space programs take many years to move from 
conception to launch. The result is that the technology in the 
satellites is significantly outdated by the time the satellites are 
launched and operational, which in turn, can lead to a decision to 
terminate a program early, and look to a newer technology. This vicious 
cycle results in significantly increased costs for space systems as 
sunk costs are never fully amortized.
    How in your view can this cycle be addressed?
    Answer. I believe shorter cycle times from concept to launch that 
are based on less complex system requirements can provide more frequent 
opportunities to infuse technology as it is determined to be mature 
enough for operational use.

                           SPACE COOPERATION

    Question. Do you support arms control limitations on space 
capabilities?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, which states that the United States will pursue bilateral 
and multilateral transparency and confidence-building measures to 
encourage responsible actions in, and the peaceful use of, space. We 
should only consider proposals and concepts for arms control measures 
if they are equitable, effectively verifiable, and enhance the national 
security of the United States and its allies.
    Question. Would you support the United States signing the so-called 
European Union Code of Conduct for Outer Space Activities?
    Answer. I understand that the Department is currently evaluating 
the European Union's proposed international Code of Conduct for Outer 
Space as a pragmatic first set of guidelines for safe activities in 
space. If confirmed, I look forward to continuing this evaluation and 
considering appropriate steps to establish rules of the road for space 
operations.

                     OPERATIONALLY RESPONSIVE SPACE

    Question. Do you support the concept of operationally responsive 
small satellites and what do you see as the most promising 
opportunities for small satellites?
    Answer. The concept of providing operationally responsive space 
capabilities to address emergent warfighter needs when existing 
capabilities cannot is sound. I understand that the recent launch of 
the first Operationally Responsive Space satellite is a good first step 
along the road to low cost, responsive space capabilities.
    Question. Do you believe that smaller less complicated less 
expensive satellites can play a role in providing resiliency or 
redundancy for space systems?
    Answer. I believe smaller, simpler, lower cost satellites can 
certainly play a role in providing resiliency for space systems. The 
specific role will depend on the priority of the mission, the state of 
technology, and the cost. The potential benefits include better 
availability of capability for the warfighter, and a more stable 
industrial base.

                          PROMPT GLOBAL STRIKE

    Question. DOD is currently working on technologies that if 
successful could lead to the decision to develop and deploy 
conventional, non-nuclear, prompt global strike capability.
    Do you believe that a prompt global strike capability should be 
developed and deployed?
    Answer. I believe DOD should continue to study and test 
technologies relevant to Conventional Prompt Global Strike (CPGS) 
capabilities, with an eye towards future acquisition. Affordable CPGS 
weapons would provide the Nation with a unique capability to strike 
time-sensitive targets without using nuclear weapons, so that distant, 
heretofore inaccessible locations will no longer provide sanctuary to 
adversaries.
    Question. If your answer to the previous question is yes, what is 
your vision of the capability that should be developed for prompt 
global strike and the types of targets that would underpin the need to 
develop the capability?
    Answer. CPGS systems could be useful in scenarios involving 
regional adversaries considering an imminent attack using weapons of 
mass destruction or against high-priority non-state adversaries. More 
broadly, CPGS may be the only system available in situations where a 
fleeting, serious threat was located in a region not readily accessible 
by other means. Fielding this capability strengthens deterrence by 
providing a credible means of responding to potential threats without 
resorting to the use of nuclear weapons.

                            NUCLEAR WEAPONS

    Question. If confirmed, you would become a member of the Nuclear 
Weapons Council, and work closely with the National Nuclear Security 
Administration and its Stockpile Stewardship Program.
    What, in your view, are the longer-term Stockpile Stewardship 
Program goals and what are the key elements that should be addressed 
from a DOD perspective?
    Answer. Congress established the Stockpile Stewardship Program with 
the aim of creating the computational capabilities and experimental 
tools needed to allow for the continued certification of the nuclear 
weapons stockpile as safe, secure, and reliable without the need for 
nuclear weapons testing. The Secretaries of Defense and Energy are 
statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    It is my understanding that stockpile stewardship is effective; 
today's stockpile has been certified and does not require further 
nuclear testing. But the stockpile is aging. I understand that there 
are challenges in identifying and remedying the effects of aging on the 
stockpile. If confirmed, I am committed to working with the Department 
of Energy to maintain the critical skills, capabilities, and 
infrastructure needed to ensure the safety, reliability, and security 
of the stockpile, within a constrained budget environment.
    Question. In your view is the Stockpile Stewardship Program 
providing the tools to ensure the safety, reliability, and security of 
the nuclear weapons stockpile without testing and if not what tools are 
needed?
    Answer. If confirmed, I would continue to study options for 
ensuring the safety, security, and reliability of nuclear warheads on a 
case-by-case basis, consistent with the congressionally-mandated 
Stockpile Management Program. It is important that the full range of 
life extension programs be considered to include: refurbishment of 
existing warheads, reuse of nuclear components from different warheads, 
and replacement of nuclear components.
    Question. Do you believe the administration's 1251 report sets 
forth an appropriate road map for the modernization of the nuclear 
weapons complex and the strategic delivery systems?
    Answer. I do believe the administration's 1251 report details the 
right roadmap for ensuring the future safety, security, and reliability 
of the nuclear stockpile and associated delivery platforms as well as 
for modernizing the nuclear weapons complex. The 1251 report details a 
strong commitment to the nuclear mission and is an important element of 
assurance that the U.S. deterrent remains strong.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. I agree that the full funding of the 1251 report is a 
critical national security priority. As stated by Secretary Gates and 
Secretary Chu in their joint 1251 transmittal letter to Chairman Levin, 
`` . . . an increase of $4.1 billion in the Department of Energy's 
National Nuclear Security Administration (NNSA) budget highlights the 
administration's strong commitment to the long-term effort to maintain 
the safety, security, and effectiveness of the nuclear deterrent and 
the NNSA infrastructure that supports it. We look forward to continuing 
the modernization and sustainment of our nuclear weapons delivery 
systems, stockpile, and infrastructure.''
    Question. Prior to completing this modernization effort do you 
believe it would be prudent to consider reductions below New START 
Treaty limits for either the deployed or nondeployed stockpile of 
nuclear weapons?
    Answer. It is my understanding that the 2010 NPR Report stated that 
we would pursue additional reductions in strategic and non-strategic 
nuclear weapons with Russia, and a key aspect of implementing the 2010 
NPR, as with previous such reviews, is conducting follow-on analysis. 
In determining U.S. objectives in future negotiations with Russia, our 
subsequent analysis will consider multiple factors in the effort to 
secure an outcome that best advances U.S. objectives for reductions in 
the numbers of deployed and non-deployed nuclear weapons, both 
strategic and non-strategic, in a manner that supports the President's 
commitment to strengthen deterrence of potential regional adversaries, 
strategic stability with Russia and China, and assurance of our allies 
and partners. I believe that the status of the modernization effort 
will play a role in these deliberations.
    Finally, the Senate noted in its resolution of advice and consent 
to ratification of the New START Treaty, and certified by the 
administration, that we must seek to initiate negotiations with Russia 
on a new arms control agreement by February 2012.
    If confirmed, as we complete follow-on analysis required by the 
NPR, I will support the Department's continuing assessment of the 
proper force size and capabilities required for an effective nuclear 
deterrent.
    Question. Without the construction of the Chemical and Metallurgy 
Research Replacement (CMRR) Facility at Los Alamos and the Uranium 
Production Facility (UPF) at Y-12 and the other elements associated 
with the robust plan for modernizing the nuclear weapons complex, do 
you believe reductions to the strategic hedge would be prudent?
    Answer. Without CMRR, UPF, and other elements to modernize the 
nuclear weapons complex, the United States will not have sufficient 
infrastructure or capability to sustain the nuclear stockpile, nor will 
it have the capability to address a critical failure in a weapon type. 
Without the ability to correct deficiencies and failures, no matter how 
remote, careful analysis and the potential acceptance of risk would be 
required to enable or accept reductions in the strategic hedge.
    Without construction of CMRR, the Nuclear Weapons Enterprise will 
not have essential tools to manufacture or assess the special nuclear 
materials required to produce or rebuild pits and other components. 
Aging facilities, long past their useful life and already partially 
condemned, cannot be sustained to meet ongoing requirements for the 
U.S. nuclear stockpile. CMRR is an important key to sustaining the U.S. 
nuclear stockpile and enabling reductions to the strategic hedge.
    UPF at Y-12 is also key to the ability of NNSA and the National 
Security Laboratories to sustain the existing U.S. nuclear stockpile 
and provide capability to rebuild secondaries as long as a nuclear 
stockpile is required. As at Los Alamos, aging facilities, long past 
their useful life and already partially condemned, cannot be sustained 
to meet ongoing requirements for the U.S. nuclear stockpile. UPF is 
essential to sustaining the U.S. nuclear stockpile and enabling 
reductions to the strategic hedge.

                 NEW START TREATY AND FUTURE REDUCTIONS

    Question. Earlier this year the New START treaty entered into 
force. Under the terms of the treaty both sides have 7 years to come 
into compliance with the treaty.
    Do you believe that there is any opportunity to come into 
compliance in less than 7 years and what would be the conditions under 
which such compliance could be achieved?
    Answer. The treaty requires both parties to ensure their strategic 
offensive forces are at levels within the treaty's three central limits 
7 years after entry into force, which will occur on February 5, 2018. 
DOD is undertaking efforts to ensure we will comply with our treaty 
obligations. For instance, to date, all B-1B bombers have been 
converted to conventional use and all Minuteman II Intercontinental 
Ballistic Missile (ICBM) launchers have been eliminated or converted 
into Minuteman III ICBM launchers, thereby removing these formerly 
accountable items from being counted under the treaty's central limits.
    Question. Do you believe that reductions in the total number of 
warheads, both Reserve and operationally deployed, is feasible prior to 
the expiration of the New START treaty and, if so, under what 
conditions?
    Answer. The Article II central limit of 1,550 warheads applies only 
to warheads on deployed ICBMs, warheads on deployed SLBMs, and nuclear 
warheads counted for deployed heavy bombers. Seven years after entry 
into force (February 5, 2018), the New START treaty requires both State 
Parties to ensure total numbers of deployed strategic warheads are 
within this central limit. The DOD is undertaking efforts to ensure the 
United States will comply with our treaty obligations.
    The New START treaty does not address non-deployed strategic 
nuclear warheads, e.g., nuclear warheads in the U.S. stockpile. Thus, 
any reductions in these weapons would be subject to a different 
analytical process that would consider stockpile reliability, 
modernization of our nuclear infrastructure, and other factors.

                      NUCLEAR TRIAD MODERNIZATION

    Question. Under the NPR, the administration has committed to begin 
modernization of each leg of the nuclear triad including development of 
new nuclear cruise missiles and extending the life of nuclear weapons. 
This process will continue over the next 30 years and longer, and will 
be very expensive.
    If confirmed, would you agree to review the requirements and cost 
of these initiatives, identify any opportunities for cost savings, and 
report back to the committee on a periodic basis if you identify such 
opportunities?
    Answer. Yes, this will fall under my responsibilities, if 
confirmed, as Vice Chairman, and I would be pleased to report any 
opportunities for cost savings to the committee.

                             NUCLEAR POLICY

    Question. Do you support President Obama's vision for a world 
without nuclear weapons?
    Answer. I share the President's vision to ``seek the peace and 
security of a world without nuclear weapons.'' I also share the 
President's commitment to a safe, secure, and effective nuclear 
deterrent capability as long as nuclear weapons exist.
    Question. Do you believe this goal is a viable near- and/or long-
term strategic strategy for the United States?
    Answer. The President recognized, and I agree, that such an 
ambitious goal could not be reached quickly and perhaps, as he said, 
not in his lifetime. He also pledged that as long as nuclear weapons 
exist, the United States will maintain a safe, secure, and effective 
arsenal, both to deter potential adversaries and to assure U.S. allies 
and other security partners that they can count on America's security 
commitments.
    A commitment to a safe, secure, and effective nuclear deterrent 
means sustaining our nuclear deterrent through life extension programs 
for warheads and modernization of delivery systems. I believe that 
providing necessary resources for nuclear modernization should be a 
national strategic priority.
    When considered in total, I believe this is a viable long-term 
strategy.
    Question. In a recent speech at the Carnegie Endowment the 
President's National Security Advisor stated that the administration is 
currently ``making preparations for the next round of nuclear 
reductions'' and that DOD will ``review our strategic requirements and 
develop options for further reductions in our current nuclear 
stockpile.'' He continued by stating that in meeting these objectives, 
the White House will direct DOD to consider ``potential changes in 
targeting requirements and alert postures.''
    Do you believe the United States should pursue further reductions? 
Please explain why or why not.
    Answer. I believe the United States should carefully consider 
future reductions in the numbers of nuclear weapons--deployed and 
nondeployed, strategic and non-strategic. Ideally, U.S. reductions 
would be associated with reductions in Russian nuclear forces, and they 
should continue to support U.S. commitments to stability, deterrence, 
and assurance. Any reductions in these weapons should consider non-
Russian threats, stockpile reliability and other factors in addition to 
the status of any planned or ongoing negotiations with Russia.
    Question. Do you believe it would be prudent for the United States 
to pursue unilateral nuclear reductions? Please explain why or why not.
    Answer. I believe the size and composition of Russia's nuclear 
forces will remain a significant factor in determining how much and how 
fast the United States is prepared to reduce its forces; therefore, we 
should place importance on Russia joining us as we move to lower 
levels.
    Any future reductions must continue to strengthen deterrence of 
potential regional adversaries, strategic stability vis-a-vis Russia 
and China, and assurance of our allies and partners.
    Question. Do you believe changes to well-established nuclear 
targeting requirements could negatively impact our ability to assure 
our allies, to discourage other countries from seeking strategic 
equivalence with the United States in nuclear weapons, and hedge 
against future threats and uncertainties?
    Answer. I believe the United States is committed to maintaining a 
credible nuclear deterrent and reinforcing regional security 
architectures and that we will continue to reassure our allies and 
partners worldwide of our security commitments to them. I have observed 
that no significant changes to such DOD policies occur without thorough 
analysis and review. National Security Advisor Donilon has stated the 
next round of nuclear reductions will be accompanied by such a review 
to include targeting policy. If confirmed, I look forward to 
participating in this review.

                          FUTURE TECHNOLOGIES

    Question. During the Cold War, DOD pursued three key technologies 
to offset the numerical superiority of Soviet conventional forces: 
precision guided munitions, stealth technology, and satellite-based 
navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. Our technology edge, however, in 
these areas is beginning to erode.
    What do you think are key technologies that DOD should be pursing 
in order to maintain a technological edge?
    Answer. The Department recently published seven strategic science 
and technology priorities. I believe focusing efforts in these areas 
are key to maintaining a technological edge. These priorities include:

        <bullet> Data to Decisions to reduce cycle time and manpower 
        needs;
        <bullet> Engineering Resilient Systems for agile manufacturing 
        of trusted and assured systems;
        <bullet> Cyber Science and technology for effective cyber 
        capabilities;
        <bullet> Electronic Warfare and Protection to protect across 
        the electro-magnetic spectrum;
        <bullet> Counter Weapons of Mass Destruction;
        <bullet> Autonomy for reliable and safe autonomous systems; and
        <bullet> Human Systems to enhance human machine interfaces.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea?
    Answer. Yes, I strongly support U.S. accession to the United 
Nations Convention on the Law of the Sea as the best possible means for 
maximizing the rights of our Armed Forces to move freely through and 
over the world's oceans. I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Question. How would you answer the critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. Accession to the Convention would more permanently secure 
the global mobility rights that are of vital importance to ongoing and 
future national security operations and humanitarian assistance 
missions. From the right of unimpeded transit passage through straits 
used for international navigation, to reaffirming the sovereign 
immunity of our warships, to providing a framework for countering 
excessive claims of other states, to preserving the right to conduct 
military activities in exclusive economic zones, the Convention 
provides the stable and predictable legal regime we need to conduct our 
operations today and in the future. The Convention codifies fundamental 
benefits important to our operating forces as they train and fight, 
supports the operational maneuver space for combat and other operations 
of our warships and aircraft, and enhances our own maritime interests 
in our territorial sea, contiguous zone, exclusive economic zone and 
continental shelf. Further, amendments made to the Convention in the 
1990s satisfied many of the concerns that opponents have expressed.
    Among the vital rights provided by the Convention that accession 
would place on a more secure footing are:

        <bullet> Innocent Passage through territorial seas;
        <bullet> Archipelagic sea lanes passage through island nations;
        <bullet> Transit passage through, under and over international 
        straits;
        <bullet> Warship right of approach and visit; and
        <bullet> Laying and maintaining of submarine cables.

    For example, in the ongoing tensions over rights in the South China 
Sea, the United States is in a weaker position in both bilateral and 
multilateral discussion by not having ratified the treaty. As another 
example, absent joining the Convention, we will lose the opportunity to 
influence key international decisions that will be made in the coming 
years regarding Arctic resource claims.
    Accession would eliminate the need for the United States to assert 
that vital portions of the Convention addressing traditional uses of 
the oceans are reflective of customary international law. As the Law of 
the Sea continues to be developed, there is a need to lock in the 
Convention's provisions as a matter of treaty law while we still can as 
a bulwark against customary law drifting in a negative direction. 
Accession would give the United States a seat at the table as the 
world's nations deliberate the future direction of the Law of the Sea.
    The Convention provides the only internationally-accepted process 
for nations to establish legal title to a continental shelf beyond 200 
nautical miles from their coasts. Only by submitting its claim of an 
extended continental shelf to the Commission set up under the 
Convention can the U.S. guarantee international acceptance of its claim 
to an extended continental shelf off its coasts, including sovereign 
rights to potentially vast energy resources in the Arctic.
    Finally, joining the Convention will enable us to shape the future 
evolution of the Law of the Sea Treaty by placing U.S. nominees in key 
positions within important bodies, including those currently 
interpreting the Convention.

                         TREATMENT OF DETAINEES

    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman, or degrading 
treatment or punishment of persons held in U.S. custody.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces fully comply with the requirements of section 1403 of 
the Detainee Treatment Act and with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.

                       BALLISTIC MISSILE DEFENSE

    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting this year and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against long-range missiles that could reach the United 
States, thus augmenting the existing homeland missile defense 
capability.
    Do you support the Phased Adaptive Approach to Missile Defense in 
Europe?
    Answer. I support the President's policy on European Phased 
Adaptive Approach and, if confirmed, I will ensure DOD supports the 
program's full implementation.
    Question. In February 2010, DOD issued its report on the first-ever 
comprehensive review of U.S. ballistic missile defense policy and 
strategy, the Ballistic Missile Defense Review (BMDR), as required by 
Congress. The BMDR established a number of policy priorities, including 
establishing defense against near-term regional missile threats as a 
top priority of missile defense plans, programs, and capabilities. It 
also stated the policy of sustaining and enhancing the ability of the 
Ground-based Midcourse Defense system to defend the Homeland against 
attack by a small number of long-range missiles by countries such as 
North Korea and Iran, and of hedging against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the BMDR?
    Answer. I support the policies, strategies, and priorities as set 
forth in the BMDR. If confirmed, I will implement the policy priorities 
of the BMDR, including sustaining and enhancing defense of the 
Homeland, while increasing our capability against growing regional 
threats.
    Question. As the Commander of NORTHCOM, you are the combatant 
commander responsible for the operation of the Ground-based Midcourse 
Defense (GMD) system to defend the homeland against potential limited 
missile attacks from nations like North Korea and Iran. The most recent 
GMD flight test, in December 2010, failed, and the Missile Defense 
Agency is working to fully understand and correct the problem that 
caused that flight test failure.
    Do you agree that it is essential to correct the problem that 
caused the December 2010 flight test failure, and to verify the success 
of that correction through extensive testing, including flight testing, 
before continuing production and delivery of additional Exo-atmospheric 
Kill Vehicles (EKV) for the GMD system?
    Answer. Verifying and correcting the problems with the EKVs prior 
to continuing production is prudent and supports the administration's 
policy to ``fly before you buy'' in order to improve reliability, 
confidence, and cost control of U.S. missile defense systems.
    Question. Do you support the continued modernization and 
sustainment of the GMD system?
    Answer. Yes. The United States is currently protected against the 
threat of limited ICBM attack from states like North Korea and Iran. It 
is important that we maintain this advantage by continuing to improve 
the GMD system and ensuring we have adequate capacity to counter 
limited threats as they evolve.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. Yes, cooperation with Russia would strengthen the 
effectiveness of U.S. and NATO missile defenses, as well as those of 
the Russian Federation. In this particular case, effective ballistic 
missile defenses devalue Iran's ballistic missile arsenal by reducing 
its confidence that an attack would be successful.
    Question. What do you believe would be the security benefits of 
such missile defense cooperation, and what types of cooperation do you 
believe would be beneficial?
    Answer. Cooperation could offer tangible benefits to the United 
States, Europe, and Russia in the form of stronger protection against 
missile threats and a greater insight into our respective missile 
defense plans, which could strengthen strategic stability. As President 
Obama stated, this cooperation can happen ``even as we have made clear 
that the system we intend to pursue with Russia will not be a joint 
system, and it will not in any way limit United States' or NATO's 
missile defense capabilities.'' Pursuing a broad agenda with Russia 
focused on shared early warning of missile launches, technical 
cooperation, operational cooperation and planning, and joint exercise 
would be beneficial cooperative efforts.
    Question. The Vice Chairman of the JCS is a member of the Missile 
Defense Executive Board, and the Chairman of the JROC. This gives the 
Vice Chairman a unique perspective on the oversight and management of 
the Ballistic Missile Defense System (BMDS), including its requirements 
component.
    Are there additional steps that you believe would make the BMDS 
more responsive to the operational needs of the combatant commanders, 
and are there additional steps that you believe would improve the 
requirements process for missile defense?
    Answer. I believe that we must continue to involve the combatant 
commanders in the acquisition process to ensure that their operational 
needs are considered as we develop and field systems to support the 
joint warfighter. To that end, we continually review these processes to 
ensure that we are doing the best job that we can to support the 
warfighter. While recognizing that BMD systems developed by the Missile 
Defense Agency are not subject to the JROC, the unique position of the 
Vice Chairman as a member of both the Missile Defense Executive Board 
and JROC provides the oversight to ensure that we are integrating all 
of the development and requirements of missile defense.

            FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION

    Question. In your view, what existing or new missions should be the 
focus of NATO's strategic efforts over the next 5 years?
    Answer. The focus of NATO's strategic efforts should be to 
collectively secure our Nations through collective defense, crisis 
management and cooperative security. NATO must complete its current 
missions in Afghanistan, Libya, the Mediterranean, off the Horn of 
Africa, and in the Balkans. We must also maintain the flexibility to 
respond to emergent threats such as ballistic missiles, nuclear 
proliferation, terrorism, and cyber attacks.
    Question. In your view, how should NATO proceed on the issue of 
further enlargement of the alliance over the next 5 years?
    Answer. This is clearly a decision reserved for NATO Heads of State 
and Government. However, in accordance with Article 10 of the NATO 
treaty, I believe that any Transatlantic State that is in a position to 
further the principles of the NATO treaty and that is willing and able 
to contribute to the security of the NATO Atlantic area commensurate 
with its capacity should be favorably considered for NATO membership.
    Question. At a NATO Defense Ministers meeting in June, then-
Secretary of Defense Gates warned that NATO was at risk of losing U.S. 
financial support for an alliance ``on behalf of nations that are 
apparently unwilling to devote the necessary resources or make the 
necessary changes to be serious and capable partners in their own 
defense.'' He criticized the ``significant shortcomings in NATO--in 
military capabilities, and in political will.'' He worried that NATO 
would turn into a ``two-tiered alliance'' consisting of ``those willing 
and able to pay the price and bear the burdens of alliance commitments, 
and those who enjoy the benefits of NATO membership.''
    Do you share Secretary Gates' concerns regarding NATO capabilities? 
Why or why not?
    Answer. Yes, I do share former Secretary Gate's concerns. Most 
allies (due to limited resources made available to defense ministries) 
have been forced to make critical choices between spending money on 
transforming their militaries or on contributing to alliance 
operations.
    Many allies have been able to strike a delicate balance between 
these two competing demands. However, it has resulted in an overall 
loss of effectiveness, which initially was minor but has now been 
compounded by time.
    The current economic climate has added to this as all allies 
envisage budget reductions. This lack of resources is the biggest 
threat to the alliance's ability to accomplish its core missions.
    Question. What steps, if any, could or should NATO take, in your 
view, to reduce tensions with Russia?
    Answer. I believe that NATO should continue to engage actively and 
positively with Russia on issues of mutual interest through the NATO 
Russia Council. This Council serves as a valuable forum not only to 
discuss issues on which we agree, but also to discuss issues on which 
we disagree. This engagement has facilitated NATO-Russia cooperation in 
numerous areas such as counter-piracy, combating-terrorism, non-
proliferation, search and rescue at sea, and disaster response. The 
continuation of this type of cooperation is important not only from a 
military perspective, but it remains an essential means by which to 
enhance transparency and therefore avoid or reduce tensions.
    Question. What is your view of the Comprehensive Test Ban Treaty 
(CTBT)? If confirmed, would you advocate ratification of the treaty?
    Answer. The CTBT is an important tool that will help counter 
nuclear proliferation. An in-force CTBT would limit the development of 
more advanced and destructive nuclear weapons and inhibit the ability 
of non-nuclear weapons states from developing their own programs. I 
understand that it has been assessed that CTBT would have no impact on 
U.S. military confidence in its nuclear stockpile. If confirmed, I 
would support ratification of the CTBT with adequate safeguards 
regarding stockpile stewardship and verification.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

           Question Submitted by Senator Joseph I. Lieberman

                            BORDER SECURITY

    1. Senator Lieberman. Admiral Winnefeld, Joint Task Force (JTF)-
North is the sole Department of Defense (DOD) organization tasked to 
support the Nation's Federal law enforcement agencies in the 
identification and interdiction of suspected transnational threats 
within and along the approaches to the Continental United States 
(CONUS). While the potential threats vary, they can include narco-
trafficking, smuggling, weapons of mass destruction, and other threats 
to our security. The Open Source Intelligence (OSINT) for Force 
Protection and Intelligence Analysis program was created in order to 
research, exploit, analyze, and disseminate unclassified information on 
cartels and transnational criminal organizations along the U.S./Mexico 
border. What is your assessment of the OSINT program administered by 
JTF-North and whether it provides value to our interagency border 
security and counter-narcotics efforts?
    Admiral Winnefeld. As the U.S. Northern Command (NORTHCOM) 
Commander, I have seen the important mission contributions that OSINT 
provides, including those to NORTHCOM's JTF-North component. I 
understand that funding for the continuation of the OSINT for Force 
Protection and Analysis program is currently under review, but assure 
you that the critical merits of this program will be reviewed before a 
final decision is made. I would defer to Department of Homeland 
Security for an assessment of the value of OSINT to its border security 
mission and to the Drug Enforcement Administration for the impact of 
OSINT on counter-narcotics trafficking.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                           HEALTH CARE COSTS

    2. Senator McCain. Admiral Winnefeld, in a modest attempt to 
control DOD's health care costs, former Secretary Gates sought to apply 
a medical inflation factor to TRICARE Prime enrollment fees for 
working-age retirees beginning in fiscal year 2013. Unfortunately, our 
committee balked at that idea, and reported a bill that would 
permanently tie DOD's hands to annual increases to the annual increase 
in retired pay, which has been minimal.
    TRICARE fees haven't changed since they were established in 1995. 
At that time, according to DOD, working age retirees paid about 27 
percent of their total costs when using civilian care. Today, out of 
pocket expenses for working age retirees represent less than 9 percent 
of the total cost of the family's health care costs. Some argue that 
health care benefits to retirees have been eroded over time. Do you 
agree?
    Admiral Winnefeld. DOD provides generous health benefits to 
retirees while maintaining TRICARE enrollment fees that are still well 
below the inflation-adjusted out-of-pocket costs set in 1995. However, 
rising medical costs add pressure to the Department's budget, which 
make modest attempts to control DOD's health care costs applied fairly 
to veterans necessary.
    The health benefits we provide to retirees are a significant part 
of the military quality of life. This commitment to caring for our men 
and women in uniform also provides the opportunity to recruit and 
retain the highest caliber personnel the Nation has to offer. I intend 
to continue our efforts to identify effective ways to improve the 
quality and cost-effectiveness of the Military Health System.

    3. Senator McCain. Admiral Winnefeld, do you support the 
administration's modest goal of linking future increases in fees for 
working age retirees to a factor that relates to rising national 
medical costs?
    Admiral Winnefeld. I believe that the proposed health care 
efficiencies, including modest increases in beneficiaries' cost shares, 
are sensible efforts to control DOD's health care costs while 
maintaining the same level of care.
    If confirmed, I will continue to identify cost-effective 
improvements to the Military Health System. Such an examination would 
include consideration of future changes in fees related to national 
medical costs.

    4. Senator McCain. Admiral Winnefeld, do you see the rise in health 
care costs as a threat to readiness and if so, what would you do or 
recommend, if confirmed, to address this very serious issue for DOD?
    Admiral Winnefeld. I believe that the rise in health care costs is 
a threat to readiness, as projected rising costs of medical care could 
demand an increasing share of a decreasing top line for DOD.
    Our uniformed servicemembers make great sacrifices for the Nation 
and deserve a quality of health care that is both commiserate with 
their quality of service and ensures they are ready for whatever we ask 
of them. Additionally, the generous health benefits we provide to their 
families and retirees are a significant contribution to our ability to 
recruit, and even more significantly, retain the best our Nation has to 
offer which directly correlates to our future readiness.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                               CYBERSPACE

    5. Senator Chambliss. Admiral Winnefeld, DOD's recently released 
its report ``Strategy for Operating in Cyber-Space'' which portrays a 
bleak outlook for our Nation's network security and highlights the need 
for increased defensive operations. However, the strategy sidesteps the 
question of retaliation measures the United States can take against 
attackers, as well as how to locate the culprits in order to punish 
them. General Cartwright stated that this strategy is ``too 
predictable'' and expressed dismay that it outlined a defensive plan 
without mentioning an offense. In unveiling the strategy, Deputy 
Secretary of Defense Lynn disclosed that, in March, DOD discovered that 
a foreign intelligence service stole 24,000 computer files related to a 
weapons system under development. While the President has said large-
scale attacks such as knocking out a power grid would be subject to 
full-scale retaliation by the U.S. military, smaller attacks such as 
data theft and security breaches are far more rampant and serious today 
and apparently have no defined consequences. What are your thoughts on 
this issue?
    Admiral Winnefeld. We must ensure our adversaries understand the 
consequences of a cyber-attack against the United States. As with more 
traditional domains, we must make a determination of when espionage 
crosses the line into hostile intent or a hostile act. While it can be 
more challenging to make this determination in cyberspace, as stated in 
the President's International Strategy for Cyberspace, when warranted, 
the United States will respond to hostile acts in cyberspace as we 
would to any other threat to our country. DOD is prepared to defend 
U.S. national security interests through all available means, if so 
directed. At the same time, we are addressing our vulnerabilities in 
cyberspace and the efforts of state and non-state actors to gain 
unauthorized access to our networks and systems.

    6. Senator Chambliss. Admiral Winnefeld, do you agree that DOD 
needs an offensive as well as a defensive strategy for cyberspace?
    Admiral Winnefeld. Yes. DOD requires a strategy for cyberspace 
operations that includes both offensive and defensive components. To 
this end, the Department must strike a balance between offensive and 
defensive cyber capabilities. This balance includes continuing with our 
cyberspace deterrent strategy; collaborating with the interagency 
community and international partners to increase our cyber security 
posture; continuing the ongoing executive level interagency review of 
the current offensive policy; and supporting efforts with the 
Department of Homeland Security, which protects U.S. networks, to 
develop the procedures to identify and mitigate threats.

                       NATIONAL MILITARY STRATEGY

    7. Senator Chambliss. Admiral Winnfeld, the statutory functions of 
the Joint Chiefs of Staff relate primarily to planning, providing 
advice, and policy formulation, particularly related to the strategic 
direction of the Armed Forces and strategic plans. In this capacity, 
not later than January 1st of each odd-numbered year, the Chairman is 
required to submit to the Secretary of Defense his assessment of the 
nature and magnitude of the strategic and military risks associated 
with executing the missions called for under the National Military 
Strategy (NMS). Not later than February 15 of each even-numbered year, 
the Chairman is required to submit to the Senate and House Defense 
Committees a comprehensive examination of the NMS. While I realize you 
have been nominated for Vice Chairman, not Chairman, nevertheless you 
will be involved in these discussions and your views will carry great 
weight.
    With that in mind, I would appreciate your views on our current 
NMS, whether you believe the Armed Forces are adequately postured and, 
if not, what changes we need to make to improve our posture with 
respect to our global responsibilities and global threats.
    Admiral Winnefeld. At this time, I believe the current NMS meets 
our requirements and is appropriately nested with the National Security 
Strategy and Quadrennial Defense Review. The Joint Force remains fully 
engaged executing that strategy. That includes major combat operations 
in Iraq and Afghanistan, conducting strategic and conventional 
deterrence, defending the Homeland, countering terrorism and piracy, 
and operating with our key allies and partners. As U.S. Northern 
Command Commander, I participated in the development of Admiral 
Mullen's 2011 Chairman's Risk Assessment, and fully support his 
conclusion that we face a number of challenges in holding down 
strategic and military risk in this uncertain security and funding 
environment. However, based on the growing national security imperative 
of deficit reduction and how this may impact resources available to 
DOD, we may need to reexamine our strategy. As Vice Chairman, I will, 
along with the Chairman, the Joint Chiefs of Staff, and combatant 
commanders continue to work with the Secretary of Defense to develop a 
strategic approach that best mitigates these risks including how we 
posture our forces.

    8. Senator Chambliss. Admiral Winnefeld, in light of pending 
reductions in all aspects of Federal spending including defense, do you 
have any thoughts on what commitments, responsibilities, and tasks you 
believe the U.S. military should consider stop doing?
    Admiral Winnefeld. The Department is continuing its Comprehensive 
Defense Review to ensure our spending decisions are strategy-based, 
risk-informed, and defend and advance our national interests given the 
range of threats we face in the current and projected security 
environment. We are taking a close look at those essential missions we 
must undertake today and in the future to meet our national security 
needs. We are also reviewing the capabilities, force structure, 
posture, and resources required for those missions, considering 
throughout the process what we should stop doing, or do less of, to not 
sacrifice the readiness and training of our forces.
    In the current environment, I believe we can achieve our financial 
imperative through a combination of efficiencies and, essentially, 
``doing less of the same.'' It goes without saying that the latter will 
involve increased risk. Should additional funding reductions be 
mandated, we will likely be forced into a strategic inflection point 
that would cause us to migrate towards less balance among the 
``prevent,'' ``prevail,'' and ``prepare'' imperatives of the 
Quadrenniel Defense Review, while maintaining our commitment to the 
``preserve'' imperative. The Chairman and I, in close consultation with 
the Joint Chiefs of Staff and combatant commanders, are closely 
examining every issue as part of this review, and will provide our 
military advice on where we think we can assume additional strategic 
and military risk resulting from reductions in the defense budget.
                                 ______
                                 
               Question Submitted by Senator Kelly Ayotte

  HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE RECAPITALIZATION PROGRAM

    9. Senator Ayotte. Admiral Winnefeld, regarding the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) Recapitalization Program, the 
currently submitted P-forms show volumes between 1,300 and 2,900 
vehicles expected to go through the program annually with a budget 
allocation of approximately $161 million per year. With a target price 
for HMMWV recapitalization between $160,000 and $180,000 each, this 
would only equate to about 1,000 vehicles recapitalized annually. Can 
you explain this potential discrepancy? Based on this, what is the 
expected timeline to complete all 60,000 HMMWVs slated for 
recapitalization?
    Admiral Winnefeld. The discrepancy in question arises from 
different cost assessments for each variant of the HMMWV. Specifically, 
we intend to procure 1,362 Up-Armored HMMWVs (UAHs) in fiscal year 2012 
at the unit cost of $101,000 as shown on the P-form. The vehicle 
quantity of 2,963 per year depicted for fiscal year 2013-2016 was based 
purely on non-armored HMMWVs at approximately half the cost of the UAHs 
per unit.
    As indicated on the P-form, the Army was initiating plans for UAH 
RECAP Modernization effort beginning in fiscal year 2013 to add 
improved performance and protection to the UAHs which aligns with the 
$160,000-$180,000 referenced in the question. Upon successful 
completion of the integration and testing of these efforts, the 
recapitalization of UAHs will migrate to the UAH RECAP Modernization 
Program. With better knowledge of the scope of this effort, the BES-13 
submission will reflect a mix of UAH RECAP Modernization and non-
armored HMMWVs.
    An ongoing assessment of the state of the HMMWV fleet and available 
funding will inform the overall vehicle quantity and mix, as well as 
the final timeline to completion.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins

                             313-SHIP NAVY

    10. Senator Collins. Admiral Winnefeld, the U.S. Navy currently has 
the fewest number of ships since before World War I. In fact, the Navy 
has established a requirement for fiscal year 2024 of having a force of 
94 multi-mission large surface combatants, but the Navy's fiscal year 
2012 30-year shipbuilding plan projects the Navy will only achieve the 
94-ship goal for BMD-capable ships in 2020 and 2012, with force levels 
declining thereafter. Furthermore, a February 2011 Navy report on 
Surface Ship Readiness found that 60 percent of the fleet is underway 
at any given time and 43 percent forward deployed, both of which 
represent historically high percentages, and negatively impacts 
material readiness and service life capacity. As national security 
requirements demand more from our ships, it is increasingly unlikely 
our surface combatants with programmed 35-year service lives will reach 
that goal. Do you support the Navy's plan to eliminate the gap between 
the 285-ship Navy we have today and the 313-ship Navy that has been 
described by the current Chief of Naval Operations as the minimum 
number of ships needed to meet the national security requirements?
    Admiral Winnefeld. I support the Navy's current plan to eliminate 
the gap between the 285-ship Navy we have today and the 313-ship Navy 
needed to meet the national security requirements of our current 
strategy. However, I also acknowledge that it may be necessary to 
adjust our strategy to match the national security imperative of 
deficit reduction with our investments in national defense. Thus it may 
be difficult to achieve the 313-ship goal. In any case, I will work to 
ensure that the Navy's shipbuilding plan continues to provide a battle 
force capable of meeting our national security requirements and that is 
properly balanced against risk and cost.

             COMBATANT COMMAND MISSILE DEFENSE REQUIREMENTS

    11. Senator Collins. Admiral Winnefeld, as Vice Chairman of the 
Joint Chiefs of Staff, you will chair the Joint Requirements Oversight 
Council (JROC) which is responsible for ensuring our warfighters have 
the capabilities they need to achieve the National Security Strategy. 
Many of us are concerned about the number of missiles and ships 
required to deploy an adequate ballistic missile defense (BMD) for our 
Nation and our allies. In March 2011, General Mattis testified before 
the Senate Armed Services Committee that he does not expect his 
requirements in U.S. Central Command (CENTCOM) for these assets will be 
fully satisfied now or in the future. He said, ``There simply are not 
enough assets to deal with the global threat.'' I would anticipate the 
other combatant commanders in Europe and in the Pacific would say 
something similar. How will you ensure the combatant commanders' BMD 
requirements are met through the JROC process?
    Admiral Winnefeld. As a sitting combatant commander, I am 
intimately aware of both the importance of understanding combatant 
command equities in the JROC process and ensuring we deliver necessary 
capabilities to our warfighters. From that experience, I believe 
involving the commanders in the acquisition process ensures their 
operational needs are considered as we develop and deploy future 
systems.
    If confirmed, I will have a role in the resourcing of our BMD 
capability as a member of the Missile Defense Executive Board (MDEB), 
but specific requirements for BMD fall outside of the JROC and are 
instead managed by the Missile Defense Agency with MDEB oversight. I 
also recognize that the Vice Chairman is uniquely suited to ensure 
combatant command BMD requirements are met as a member of both the MDEB 
and JROC and through his general involvement in the budget process. I 
look forward, if confirmed, to ensuring we deliver for the warfighter 
in this valuable mission set.

                      SHIPBUILDING INDUSTRIAL BASE

    12. Senator Collins. Admiral Winnefeld, in their fiscal year 2012 
budget testimony, former Secretary Gates and Admiral Mullen identified 
shipbuilding as one of the two components of the defense industrial 
base that worried them, in particular. Secretary Gates stated, ``A 
number of the Navy ships that were built during the Reagan years will 
basically reach the end of their planned life in the 2020s, and where 
the money comes from to replace those ships is going to be a challenge 
. . . there are some tough choices in terms of big capabilities that 
are coming down the road.'' Do you agree with that assessment and the 
importance of sustaining the shipbuilding industrial base?
    Admiral Winnefeld. A healthy industrial base is critical in all 
areas of defense acquisition to ensure delivery of the industrial 
capacity and quality necessary to meet our national security 
requirements. I agree that a number of ships will reach their planned 
life in the 2020s. The Navy's long-term shipbuilding plan includes 
retirement of 105 ships from 2020 to 2029. During the same period, the 
Navy plans to take delivery of 94 ships. Based on the Comprehensive 
Review and expected defense spending reductions, I will work to ensure 
that the Navy's shipbuilding plan continues to provide a force capable 
of meeting our national strategic objectives. As we work through the 
difficult decisions we will face due to ongoing deficit reduction 
efforts, maintaining an adequate industrial base must, in my view, 
remain a priority.

                              SAFE HAVENS

    13. Senator Collins. Admiral Winnefeld, on July 17, 2011, Maine 
lost another one of its proud soldiers, Private First Class Tyler 
Springmann, to an improvised explosive device that exploded in 
Afghanistan. Given the tremendous sacrifice that our service men and 
women are making, I want to be sure that the strategy currently being 
pursued can work. The President has stated the core goal of the U.S. 
strategy in Central Asia is to disrupt, dismantle, and defeat al Qaeda 
in Afghanistan and Pakistan, and to prevent their return to either 
country in the future. Earlier this year, Admiral Mullen testified that 
one of the necessary conditions to achieve that goal was to neutralize 
insurgent sanctuaries in Pakistan, but that insurgent groups currently 
operate unhindered in those sanctuaries. Yet, General Mattis recently 
testified that he does not expect Pakistan will reverse its current 
approach and eliminate the safe havens that exist there. He said that 
``satisfactory end-states are attainable in Afghanistan, even if the 
sanctuaries persist.'' Even if there is a satisfactory end-state in 
Afghanistan, how can we achieve the President's goal of preventing the 
return of al Qaeda fighters to Afghanistan and Pakistan so long as they 
can take advantage of the safe havens enjoyed by the Quetta Shura and 
the Haqqani network just across the border in Pakistan?
    Admiral Winnefeld. The loss of Private First Class Tyler Springmann 
and others like him exemplifies the challenges our forces currently 
face; a challenge exacerbated by sanctuaries in Pakistan and by 
Pakistan's apparent unwillingness to fully engage these extremist 
networks.
    A satisfactory end state in Afghanistan should make it more 
difficult for extremists finding safe haven in Pakistan to operate in 
Afghanistan. We have found that areas in Afghanistan in which security 
and economic progress are achieved tend to reject the presence of these 
extremists. Moreover, we intend to continue our efforts to persuade 
Pakistani leaders that extremist groups operating in Pakistan, 
including some that exist as proxies of the Pakistani government, pose 
a threat to regional stability and to Pakistan itself, and should be 
disrupted and dismantled.

                            SUCCESS METRICS

    14. Senator Collins. Admiral Winnefeld, the fiscal year 2012 budget 
request documents state the top strategic goal for DOD is to prevail in 
today's wars. I am surprised that the budget documents include only six 
metrics to measure whether DOD is prevailing in today's war in 
Afghanistan. Two of the metrics look at the number of trained Afghan 
security forces. Another metric evaluates whether CENTCOM has the 
resources to conduct military operations. The last three of the six DOD 
metrics are tied to contracting actions in theater. I am concerned that 
most of these metrics fail to address the major challenges in 
Afghanistan: eliminating the Pakistan safe havens, reducing corruption, 
building a robust agriculture economy, and improving governance. The 
metrics do not even include how many al Qaeda members are present in 
either country. Given that prevailing in today's wars is the most 
important goal of DOD, do you believe the current metrics allow you and 
the rest of the Services to adequately measure success in Afghanistan 
and Pakistan?
    Admiral Winnefeld. As part of a budget document, the fiscal year 
2011 and fiscal year 2012 DOD-wide priority performance goals in the 
fiscal year 2012 Defense budget are specifically related to business 
operations and logistics support to overseas contingency operations. 
The specific metrics for evaluating progress and measuring success in 
Afghanistan and Pakistan, including the two DOD-assigned objectives, 
are spelled out in Annex B of the NSC's 2009 strategic implementation 
plan for Afghanistan and Pakistan.
    Examples, among many others, include the extent of militant-
controlled areas in Pakistan, the effectiveness of Pakistani border 
security efforts, measures of population security at all levels 
including the number of districts or extent of area under insurgent 
control, the size and capability of the Afghan National Army and Afghan 
National Police, and effectiveness of Afghan National Security Forces-
International Security Assistance Force partnered counterinsurgency 
operations.
    While I believe these metrics, indicators, and submetrics are 
sufficient, we continue to work with the interagency to refine our 
criteria as the environment changes.
                                 ______
                                 
    [The nomination reference of ADM James A. Winnefeld, Jr., 
USN, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Vice Chairman of 
the Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 601 and 154:

                             To be Admiral

    ADM James A. Winnefeld, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of ADM James A. Winnefeld, Jr., 
USN, which was transmitted to the committee at the time the 
nomination was referred, follows:]
    Biographical Sketch of VADM James Alexander Winnefeld, Jr., USN




    24 Apr. 1956..........................  Born in Coronado, CA
    07 June 1978..........................  Ensign
    07 June 1980..........................  Lieutenant (junior grade)
    01 July 1982                            Lieutenant
    01 Sep. 1988..........................  Lieutenant Commander
    01 Sep. 1992..........................  Commander
    01 Sep. 1997..........................  Captain
    01 Oct. 2003..........................  Rear Admiral (lower half)
    06 May 2006...........................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
    01 Aug. 2006..........................  Rear Admiral
    14 Sep. 2007..........................  Vice Admiral
    19 May 2010...........................  Admiral, Service continuous
                                             to date



Major duty assignments:

------------------------------------------------------------------------
            Assignments and duties                  From          To
------------------------------------------------------------------------
Naval Station, Annapolis, MD (Division           June 1978    Nov. 1978
 Officer).....................................
Naval Aviation Schools Command, Pensacola, FL    Nov. 1978    Apr. 1979
 (DUINS)......................................
Training Squadron Six (Student)...............   Apr. 1979    June 1979
Naval Aviation Schools Command, Pensacola, FL    June 1979    June 1979
 (DUINS)......................................
Training Squadron Two Three (Student).........   June 1979    Dec. 1979
Training Squadron Two Two (Student)...........   Dec. 1979     May 1980
Fighter Squadron One Two Four (Replacement       June 1980    Apr. 1981
 Pilot).......................................
Fighter Squadron Two Four (Power Plants Branch   Apr. 1981    Nov. 1983
 Officer).....................................
Naval Fighter Weapons School, San Diego, CA      Nov. 1983    Jan. 1987
 (Quality Assurance Officer)..................
Fighter Squadron One Two Four (Replacement       Jan. 1987    Apr. 1987
 Naval Aviator)...............................
Fighter Squadron One (Operations Officer).....   Apr. 1987    Jan. 1990
Joint Staff (Action Officer, EUCOM/CENTCOM       Feb. 1990    July 1991
 Branch, J3)..................................
Joint Staff (Senior Aide-De-Camp to the          July 1991    Aug. 1992
 Chairman of the Joint Chiefs of Staff).......
Fighter Squadron One Two Four (Student).......   Aug. 1992    Jan. 1993
XO, Fighter Squadron Two One One..............   Jan. 1993    Apr. 1994
CO, Fighter Squadron Two One One..............   Apr. 1994    Mar. 1995
Naval Nuclear Power Training Command, Orlando,   Mar. 1995    Feb. 1996
 FL (Student).................................
Prospective Executive Officer, USS John C.       Feb. 1996    Mar. 1996
 Stennis (CVN 74).............................
Naval Reactors, Department of Energy,            Mar. 1996    Aug. 1996
 Washington, DC (Student).....................
XO, USS John C Stennis (CVN 74)...............   Aug. 1996     May 1998
CO, USS Cleveland (LPD 7).....................    May 1998    Feb. 2000
CO, USS Enterprise (CVN 65)...................   Feb. 2000    Mar. 2002
Office of the Vice Chief of Naval Operations     Mar. 2002    July 2003
 (Executive Assistant)........................
Commander, U.S. Atlantic Fleet (Director,        July 2003    Dec. 2004
 Warfare Programs and Readiness) (N8).........
Commander, Carrier Strike Group Two...........   Dec. 2004    June 2006
Commander, U.S. Joint Forces Command (Director   June 2006    Aug. 2007
 of Joint Innovation and Experimentation, J9).
Commander, Sixth Fleet/Commander, Striking and   Sep. 2007    Aug. 2008
 Support Forces NATO/Deputy Commander, U.S.
 Naval Forces Europe/Commander, Joint
 Headquarters Lisbon..........................
Joint Staff (Director, Strategic Plans and       Aug. 2008     May 2010
 Policy) (J5)/Senior Member, U.S. Delegation
 to the United Nations Military Staff
 Committee....................................
Commander, Northern Command/Commander, North      May 2010      To date
 American Aerospace Defense Command...........
------------------------------------------------------------------------


Medals and awards:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with two Gold Stars
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Air Medal with First Strike/Flight Award
    Navy and Marine Corps Commendation Medal with one Gold Star
    Joint Service Achievement Medal
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with ``E'' Device
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with two Bronze Stars
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with one Silver Star and one Bronze 
Star
    Expert Pistol Shot Medal

Special qualifications:
    BS (Aerospace Engineering) Georgia Institute of Technology, 1978
    Designated Naval Aviator, 1980
    Capstone, 2004-3
    Designated Level IV Joint Qualified Officer, 2009

Personal data:
    Wife: Mary Alice Werner of Menomonie, WI
    Children: James A. Winnefeld II (Son), Born: 29 November 1995
             Jonathan J. Winnefeld (Son) Born: 11 May 1998.

Summary of joint duty assignments:

------------------------------------------------------------------------
             Assignment                       Dates              Rank
------------------------------------------------------------------------
Joint Staff (Action Officer, EUCOM/  Feb. 90-July 91.......           LCDR
 CENTCOM Branch, J3).
Joint Staff (Senior Aide-De-Camp to  July 91-Aug. 92.......            CDR
 the Chairman of the Joint Chiefs
 of Staff).
Commander, U.S. Joint Forces         June 06-Aug. 07.......        RADM
 Command (Director of Joint
 Innovation and Experimentation,
 J9).
Commander, Sixth Fleet/Commander,    Sep. 07-Aug. 08.......        VADM
 Striking and Support Forces NATO/
 Deputy Commander, U.S. Naval
 Forces Europe/Commander, Joint
 Headquarters Lisbon.
Joint Staff (Director, Strategic     Aug. 08-May 10........        VADM
 Plans and Policy) (J5)/Senior
 Member, U.S. Delegation to the
 United Nations Military Staff
 Committee.
Commander, Northern Command/         May 10-to date........         ADM
 Commander, North American
 Aerospace Defense Command.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM James A. 
Winnefield, Jr., USN, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James A. Winnefield, Jr. (Nickname: Sandy).

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    June 6, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    24 April 1956; Coronado, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Alice Winnefeld, Maiden name: Werner.

    7. Names and ages of children:
    James A. Winnefeld II; age 15.
    Jonathan Jacob Winnefeld: age 13.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    My wife and I participate in two limited liability corporations 
(LLC) with her sister, Dr. Sarah Werner of Denver, CO, in ownership of 
two real estate properties in Breckenridge, CO. One LLC is for a 
vacation residence that is offered for rent when not being used by the 
owners and for which my wife and I earned moderate income ($1,006) in 
calendar year 2010. The other LLC is for an unimproved lot that we 
intend to build a vacation residence on. These LLCs are closely-held 
family entities, and I do not serve on a compensated basis in the 
management of them. There are no conflicts of interest associated with 
these arrangements.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member (otherwise referred to as a Trustee) of the U.S. Naval 
Academy Foundation: Athletic and Scholarships Program (a nonprofit 
organization).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            James A. Winnefeld, Jr.
    This 6th day of June, 2011.

    [The nomination of ADM James A. Winnefeld, Jr., USN, was 
reported to the Senate by Chairman Levin on August 2, 2011, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2011.]
                              ----------                              

    [Prepared questions submitted to GEN Raymond T. Odierno, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. None. In my view, the Goldwater-Nichols Act has been very 
effective in making the armed services an integrated joint force.

                       DUTIES AND QUALIFICATIONS

    Question. Section 3033 of title 10, U.S.C., establishes the 
responsibilities and authority of the Chief of Staff of the Army.
    What is your understanding of the duties and functions of the Chief 
of Staff of the Army?
    Answer. The Chief of Staff of the Army is the senior military 
advisor to the Secretary of the Army. In addition to his role as an 
advisor, the Chief of Staff is responsible for the effective and 
efficient functioning of Army organizations and commands in executing 
their statutory missions. The Chief of Staff shall also perform the 
duties prescribed for him as a member of the Joint Chiefs of Staff 
under section 151 of title 10.
    Question. Assuming you are confirmed, what duties do you expect 
that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I would expect Secretary McHugh to assign me 
the following duties:

    (a)  Serve as the senior military leader of the Army and all its 
components;
    (b)  Assist the Secretary with his external affairs functions, 
including presenting and justifying Army policies, plans, programs, and 
budgets to the Secretary of Defense, executive branch, and Congress;
    (c)  Assist the Secretary with his compliance functions, to include 
directing The Inspector General to perform inspections and 
investigations as required;
    (d)  Preside over the Army Staff and ensure the effective and 
efficient functioning of the headquarters, to include integrating 
Reserve Component matters into all aspects of Army business;
    (e)  Serve as a member of the Joint Chiefs of Staff and provide 
independent military advice to the Secretary of Defense, Congress, and 
the President. To the extent such action does not impair my 
independence in my performance as a member of the Joint Chiefs of 
Staff, I would keep the Secretary of the Army informed of military 
advice that the Joint Chiefs of Staff render on matters affecting the 
Army. I would inform the Secretary of the Army of significant military 
operations affecting his duties and responsibilities, subject to the 
authority, direction, and control of the Secretary of Defense;
    (f)  Represent Army capabilities, programs, policy, and 
requirements in Joint Forces;
    (g)  Supervise the execution of Army policies, plans, programs, and 
activities and assess the performance of Army commands in the execution 
of their assigned statutory missions and functions; and
    (h)  Task and supervise the Vice Chief of Staff, Army, the Army 
Staff and, as authorized by the Secretary of the Army, elements of the 
Army Secretariat to perform assigned duties and responsibilities.

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have over 35 years of experience in the Army with joint 
and combined operations. I have commanded at every level from platoon 
to theater level. I had the distinct privilege to command at the 
division, corps, and theater level in the Iraq combat theater. I have 
participated in Operations Desert Shield, Desert Storm, supported the 
operations in Bosnia as the V Corps Chief of Staff, and deployed to 
Albania in support of the war in Kosovo. In Iraq, I've had the 
opportunity to apply the full range of Army, joint, and combined force 
capabilities against a broad range of complex environments as well as 
to establish strong civil military relationships to achieve unity of 
effort. My considerable service in joint as well as Army positions has 
given me a unique perspective of the Army, its processes and 
capabilities. The combination of all these things as well as my 
experience in working with the great young soldiers that we have in the 
Army today will enable me to lead the Army to meet our current and 
future missions and requirements.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Army?
    Answer. If confirmed, my tenure as Chief of Staff will be marked by 
continuous self-assessment of my ability to perform my duties. As I 
believe necessary, I will enact measures which will improve my ability 
to lead the Army. It is essential in this complex environment that we 
continue to learn and adapt to ensure that our skills remain current so 
we remain viable to meet our future challenges.
    Question. What duties and responsibilities would you plan to assign 
to the Vice Chief of Staff of the Army?
    Answer. If confirmed as Chief of Staff of the Army, I would ensure 
the Vice Chief of Staff is responsible for providing me advice and 
assistance in the execution of my duties, specifically with regard to 
manpower and personnel; logistics; operations and plans; requirements 
and programs; intelligence; command, control, and communications; and 
readiness.

                             RELATIONSHIPS

    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, as the head of the Department of 
Defense (DOD) and the principal assistant to the President in all 
Department of Defense matters, provides guidance and direction to the 
military departments. If confirmed, I will be responsible to the 
Secretary of Defense and his Deputy, through the Secretary of the Army, 
for the operation of the Army in accordance with the Secretary of 
Defense's guidance and direction. If confirmed, as a member of the 
Joint Chiefs of Staff, I will serve as a military adviser to the 
Secretary of Defense as appropriate. I will cooperate fully with the 
Secretary of Defense to ensure that the Army properly implements the 
policies established by his office. In coordination with the Secretary 
of the Army, I will communicate with the Secretary of Defense in 
articulating the views of the Army.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Secretary of Defense also delegates to the Deputy Secretary of Defense 
full power and authority to act for the Secretary of Defense and 
exercise the powers of the Secretary on any and all matters for which 
the Secretary is authorized to act pursuant to law. If confirmed, I 
will be responsible to the Secretary of Defense, and to his deputy, 
through the Secretary of the Army, for the operation of the Army in 
accordance with the Secretary's guidance and direction. Also, in 
coordination with the Secretary of the Army, I will communicate with 
the Deputy Secretary in articulating the views of the Army. I will work 
closely with them to ensure that the Army is administered in accordance 
with the guidance and direction issued by the Office of the Secretary 
of Defense.
    Question. The Under Secretaries of Defense.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretaries perform responsibilities that require them, from time to 
time, to issue guidance--and in the case of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, direction--to the 
military departments. If confirmed, in coordination with the Secretary 
of the Army, I will communicate with the Under Secretaries in 
articulating the views of the Army. I will work closely with the Under 
Secretaries to ensure that the Army is administered in accordance with 
the Office of the Secretary of Defense's guidance and direction.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Subject to the authority, direction, and 
control of the President and the Secretary of Defense, the Chairman 
plans the strategic direction and contingency operations of the Armed 
Forces; advises the Secretary of Defense on requirements, programs, and 
budgets that the combatant command commanders identify; develops 
doctrine for the joint employment of the Armed Forces; reports on 
assignment of functions (or roles and missions) to the Armed Forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as the 
law or the President or Secretary of Defense may prescribe.
    In conjunction with the other members of the Joint Chiefs, the 
Chief of Staff of the Army assists the Chairman in providing military 
advice to the President, the National Security Council, and the 
Secretary of Defense. If confirmed as a member of the Joint Chiefs of 
Staff, I will provide my individual military advice to the President, 
the National Security Council, and the Secretary of Defense. If 
confirmed, it would be my duty as a member of the Joint Chiefs of Staff 
to provide frank and timely advice and opinions to the Chairman to 
assist him in his performance of these responsibilities. If confirmed, 
and as appropriate, I will also provide advice in addition to or in 
disagreement with that of the Chairman. I will establish and maintain a 
close and professional relationship with the Chairman, and I will 
communicate directly and openly with him on any policy matters 
impacting the Army and the Armed Forces as a whole.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff assists the 
Chairman in providing military advice to the Secretary of Defense and 
the President. If confirmed, it would be my duty as a member of the 
Joint Chiefs of Staff to ensure that the Vice Chairman receives my 
frank views and opinions to assist him in performing his 
responsibilities.
    Question. The chiefs of the other Services.
    Answer. If confirmed, as a member of the Joint Chiefs of Staff, it 
would be my duty to engage in frank and timely exchanges of advice and 
opinions with my fellow Service Chiefs. I look forward to developing 
strong working relationships with these colleagues, if I am confirmed.
    Question. The combatant commanders.
    Answer. Subject to the direction of the President, the combatant 
commanders perform their duties under the authority, direction, and 
control of the Secretary of Defense, and are directly responsible to 
the Secretary of Defense for their commands' preparedness to execute 
missions assigned to them. As directed by the Secretary of Defense, the 
Service Secretaries assign all forces under their jurisdiction to the 
unified and specified combatant commands or to the U.S. element of the 
North American Aerospace Defense Command, to perform missions assigned 
to those commands. In addition, subject to the authority, direction, 
and control of the Secretary of Defense and the authority of combatant 
commanders under title 10, U.S..C., section 164(c), the Service 
Secretaries are responsible for administering and supporting the forces 
that they assign to a combatant command. If confirmed, I will cooperate 
fully with the combatant commanders in performing these administrative 
and support responsibilities. I will establish close, professional 
relationships with the combatant commanders and I will communicate 
directly and openly with them on matters involving the Department of 
the Army and Army forces and personnel assigned to or supporting the 
combatant commands.
    Question. The Army component commanders of the combatant commands
    Answer. The Army component commanders of the combatant commands 
exercise command and control under the authority and direction of the 
combatant commanders to whom they are assigned and in accordance with 
the policies and procedures established by the Secretary of Defense. 
The combatant commanders normally delegate operational control of Army 
forces to the Army component commander. The Secretary of the Army 
generally delegates administrative control of Army forces assigned to 
the combatant commander to the Army component commander of that 
combatant command. The Army component commander is responsible for 
recommendations to the joint force commander on the allocation and 
employment of Army forces within the combatant command. If confirmed, I 
will cooperate fully with the combatant commanders and Army component 
commanders in performing these responsibilities.
    Question. The Secretary of the Army.
    Answer. If confirmed, I will establish a close, direct, and 
supportive relationship with the Secretary of the Army. Within the 
Army, one of my primary responsibilities as Chief of Staff would be to 
serve as the Secretary's principal military adviser. My 
responsibilities would also involve communicating the Army Staff's 
plans to the Secretary and supervising the implementation of the 
Secretary's decisions through the Army Staff, commands, and agencies. 
My actions would be subject to the authority, direction, and control of 
the Secretary. In my capacity as a member of the Joint Chiefs of Staff, 
I would also be responsible for appropriately informing the Secretary 
about conclusions reached by the Joint Chiefs of Staff and about 
significant military operations, to the extent this would not impair my 
independence in performing my duties as a member of the Joint Chiefs of 
Staff. If confirmed, I look forward to working closely and in concert 
with the Secretary of the Army to establish the best policies for the 
Army, taking into account national interests.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant. The Under Secretary of the Army performs 
such duties and exercises such powers as prescribed by the Secretary of 
the Army. The Under Secretary's responsibilities require him, from time 
to time, to issue guidance and direction to the Army Staff. If 
confirmed, I will be responsible to the Secretary and to the Under 
Secretary for the operation of the Army in accordance with such 
directives. I will cooperate fully with the Under Secretary to ensure 
that the policies that the Office of the Secretary of the Army 
establishes are implemented properly. I will communicate openly and 
directly with the Under Secretary in articulating the views of the Army 
Staff, commands, and agencies.
    Question. The Vice Chief of Staff of the Army.
    Answer. The Vice Chief of Staff of the Army serves as the principal 
advisor and assistant to the Chief of Staff. If confirmed, I will 
establish and maintain a close, professional relationship with Vice 
Chief of Staff, Army.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require them to issue 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with the 
Assistant Secretaries in order to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we address 
the Army's day-to-day management and long-range planning requirements.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. The duties of the General Counsel include 
coordinating legal and policy advice to all members of the Department 
regarding matters of interest to the Secretariat, as well as 
determining the position of the Army on any legal question or 
procedure, other than military justice matters, which are assigned to 
The Judge Advocate General. If confirmed, I will establish and maintain 
a close, professional relationship with the General Counsel to assist 
in the performance of these important duties.
    Question. The Inspector General of the Army.
    Answer. The Inspector General is responsible for inspections and 
certain investigations within the Department of the Army, such as 
inquiring into and reporting to the Secretary of the Army and the Chief 
of Staff regarding discipline, efficiency, and economy of the Army with 
continuing assessment of command, operational, logistical, and 
administrative effectiveness; and serving as the focal point for the 
Department of the Army regarding DOD Inspector General inspections and 
noncriminal investigations, as well as the DOD inspection policy. If 
confirmed, I will establish and maintain a close, professional 
relationship with the Inspector General of the Army to ensure effective 
accomplishment of these important duties.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General is the military legal advisor to 
the Secretary of the Army and all officers and agencies of the 
Department of the Army. The Judge Advocate General provides legal 
advice directly to the Chief of Staff and to the Army Staff in matters 
concerning military justice; environmental law; labor and civilian 
personnel law; contract, fiscal, and tax law; international law; and 
the worldwide operational deployment of Army forces. The Chief of Staff 
does not appoint The Judge Advocate General, and does not have the 
personal authority to remove him. This enables The Judge Advocate 
General to provide independent legal advice. If confirmed, I will 
establish and maintain a close, professional relationship with the The 
Judge Advocate General as my legal advisor and I will assist him in the 
performance of his important duties as the legal advisor to the 
Secretary of the Army.
    Question. The Chief of the National Guard Bureau.
    Answer. The National Guard Bureau is a joint activity of DOD. The 
Chief National Guard Bureau is appointed by the President, he serves as 
a principal adviser to the Secretary of Defense through the Chairman of 
the Joint Chiefs of Staff on matters concerning non-Federalized 
National Guard forces. He is also the principal advisor to the 
Secretary of the Army and the Chief of Staff on matters relating to the 
National Guard. If confirmed, I will establish and maintain a close, 
professional relationship with the Chief, National Guard Bureau to 
foster an environment of cooperative teamwork between the Army Staff 
and the National Guard Bureau, as we deal together with the day-to-day 
management and long-range planning requirements facing the Army.
    Question. The Director of the Army National Guard.
    Answer. The Director, Army National Guard is responsible for 
assisting the Chief, National Guard Bureau in carrying out the 
functions of the National Guard Bureau, as they relate to the Army 
National Guard. If confirmed, I will establish and maintain a close, 
professional relationship with the Director, Army National Guard to 
foster an environment of cooperative teamwork between the Army Staff 
and the National Guard Bureau. This will be essential as we deal 
together with the day-to-day management and long-range planning 
requirements facing the Army to sustain and improve the Army National 
Guard's operational capabilities.
    Question. The Chief of the Army Reserve.
    Answer. The Chief, Army Reserve is responsible for justifying and 
executing the Army Reserve's personnel, operation and maintenance, and 
construction budgets. As such, the Chief, Army Reserve is the director 
and functional manager of appropriations made for the Army Reserve in 
those areas. If confirmed, I will establish and maintain a close, 
professional relationship with the Chief, Army Reserve as we deal 
together with the Army's day-to-day management and long-range planning 
requirements in order to sustain and improve the Army Reserve's 
operational capabilities.

                         VISION FOR THE FUTURE

    Question. What is your vision for the Army of today and the future?
    Answer. My vision is of an All-Volunteer Army today and in the 
future that provides depth and versatility to the Joint Force, is 
efficient in its employment and provides flexibility for national 
security decisionmakers in defense of the Nation's interests at home 
and abroad.
    Question. What roles do you believe the Army should play in 
contingency, humanitarian, and stability operations?
    Answer. I believe our Army must maintain the right capabilities and 
amount of capability (depth) to provide our national leaders with 
trained and ready forces that can perform missions across the spectrum 
of conflict. We are capable of executing contingency, humanitarian or 
stability operations as directed by the President or Secretary of 
Defense under the control of the appropriate combatant commander.
    We are also capable of assisting our international partners in 
building their own operational capacity. Through theater engagement and 
Security Force Assistance, we have the capability to increase the 
capacity of partner nations to uphold the rule of law, ensure domestic 
order, protect its citizens during natural disasters, and avoid 
conflicts, which would otherwise require U.S. military support.
    Question. Do you see any unnecessary redundancy between Army and 
Marine Corps ground combat forces, particularly between Army combat 
battalions, regiments/brigades, and divisions and the equivalent Marine 
Corps formations?
    Answer. No, we each have unique but complementary capabilities that 
provide the National Command Authority flexibility. We have proven over 
the last 10 years, specifically, the flexibility and the adaptability 
of the Army and the Marine Corps to complement each other in a variety 
of operations and environments.

                    MAJOR CHALLENGES AND PRIORITIES

    Question. In your view, what are the major challenges that will 
confront the next Chief of Staff of the Army?
    Answer. In a potentially resource constrained environment, we must:

    (1)  Continue to provide trained and ready forces to meet current 
wartime requirements and other worldwide contingencies;
    (2)  Continue to reset the Army to meet future challenges;
    (3)  Continue to adapt and develop a more effective and efficient 
force to meet our Nation's future challenges; and
    (4)  Right-size the Army and sustain the All-Volunteer Army by 
ensuring programs are in place to care for and develop our soldiers and 
their families.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will continue to work closely with Congress 
to address these challenges. We will continue to refine and update our 
training programs to ensure all our soldiers are fully prepared to 
deploy to combat. We will continue to review our reset, force 
modernization and acquisition programs in order to more efficiently 
meet the needs and requirements of today and the future. I will work 
closely with the Secretary of Defense, the Secretary of the Army, and 
combatant commanders to identify the capabilities needed to provide 
depth and versatility to the Joint Force in order to provide more 
effective and flexible forces for employment. I will continue to adjust 
our leader development programs in order to develop thinking, adaptable 
decisionmakers necessary to operate in an increasingly complex and 
unpredictable environment. I will review our soldier and family 
programs to ensure we are meeting their needs.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Army?
    Answer. At this point, I am not aware of any problems that would 
impede the performance of the Chief of Staff of the Army.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. I will ensure that management systems are in place. I will 
continue to monitor and to assess those processes, and I will 
specifically reinforce and review our management processes to ensure 
stewardship of the precious resources we are given to accomplish our 
mission.
    I am committed to the wise stewardship of our limited and valuable 
resources. Having just completed the disestablishment of Joint Forces 
Command, I understand the tough choices that must be made to operate 
within fiscal constraints, while minimizing risk to operational 
capability. If confirmed, I will carry this experience and ethos into 
this position.
    Question. If confirmed, what broad priorities will you establish?
    Answer. I will work closely with the Secretary of the Army to lay 
out the priorities of the Army. Within the framework of the Secretary 
of the Army's vision, here are my priorities:

        <bullet> Develop and articulate a vision of the Army that 
        addresses the needs of the Nation;
        <bullet> Keep faith with our All-Volunteer Force;
        <bullet> Focus on leader development to ensure our future 
        leaders remain resilient;
        <bullet> Explore, outline, and implement tangible methods to 
        become more efficient and effective; and
        <bullet> Reinvigorate the Profession of Arms.

                          U.S. FORCES IN IRAQ.

    Question. If the Government of Iraq were to ask for the continued 
presence in Iraq of U.S. forces beyond the end of 2011, would you 
recommend to the President the deployment or retention of additional 
troops in Iraq beyond the current deadline for U.S. troop withdrawal?
    Answer. Based on the information I have available to me now, my 
personal opinion is that I would recommend that the United States 
continue to support the Government of Iraq as it assumes responsibility 
for security. Our assessments indicate that Iraq is well on its way to 
being capable of providing for its own security, but they must have the 
opportunity to ensure their systems are fully capable of meeting their 
needs. If asked by the Government of Iraq, I would recommend a 
continued presence focused on training and filling any gaps in external 
security as required, combined with a variety of continued engagements, 
exercises, and other mutual security arrangements. Our commitment to 
Iraq is a signal of our commitment to the region, which is closely 
linked to our national interests.
    Question. The Army has recently announced the extension in Iraq of 
elements of the 25th Infantry Division beyond the normal 12-month 
deployed limit.
    What is your understanding and assessment of this extension and its 
potential impact on Army, unit, and family morale, well-being, and 
future rotation cycles?
    Answer. As we withdraw from Iraq, there remain some critical 
requirements and issues that necessitate continuity and experience. I 
understand that this 30-day extension of the of 25th ID Headquarters 
specifically, was fully reviewed by U.S. Forces-Iraq (USF-I), U.S. 
Central Command (CENTCOM), and the former Secretary of Defense and 
steps were taken to minimize any negative impacts on the soldiers and 
the families.
    Although extensions are always difficult, I expect that this 
extension may have only a minimal effect due to its relatively short 
duration and the nature of redeployment. To mitigate the impact when 
approving the extension, the Secretary of Defense also directed that 
the maximum number of soldiers, with consideration of special family 
issues, redeploy prior to the holiday period.
    Question. If confirmed, how would you monitor the redeployment of 
these troops to ensure that the requirements of the U.S.-Iraq security 
agreement are met and that delay of their return home is avoided?
    Answer. This extension was approved by the Secretary of Defense at 
the request of USF-I and CENTCOM. The Army continually monitors the 
deployment and redeployment of soldiers rotating or taking leave. If 
confirmed, we will do everything we can to facilitate the redeployment 
and ensure that we maintain accountability of all soldiers to ensure 
their safety and well being while accomplishing the mission. We will 
monitor the redeployment of these soldiers as we do all others and 
provide whatever support is needed to U.S. Pacific Command as they 
redeploy to Hawaii.
    Question. Is it your understanding that those soldiers who are 
extended will be compensated for their additional deployed time in the 
same manner as those who have been extended in the past?
    Answer. Yes, the Army will provide compensation for those soldiers 
whose deployments are extended in a similar manner to those who have 
been extended in the past.
    Question. What is your understanding of how the Army will address 
the needs of those families who have incurred nonrefundable expenses 
based upon original redeployment plans?
    Answer. If mission conditions dictate extending soldiers beyond 
scheduled redeployment dates and families have incurred nonrefundable 
expenses, the Army has a claims process they can use to address the 
situation. Additionally, the Army does provide monthly compensation for 
soldiers who are involuntarily extended.
    To mitigate the impact when approving the extension, the Secretary 
of Defense also directed that the maximum number of soldiers, with 
consideration of special family issues, redeploy prior to the holiday 
period.

   DEPARTMENT OF DEFENSE EFFICIENCY INITIATIVES AND BUDGET TOP LINE 
                               REDUCTIONS

    Question. The Army's share of the DOD efficiency initiatives in the 
near-term is about $29.5 billion that the Army will keep for 
reinvestment in its own programs. The Army's plan to achieve these 
savings is based on reorganizations and consolidations of management 
activities, deferral of military construction costs, and cancellation 
of some major weapons programs. DOD has also reduced its planned top-
line by $78.0 billion over fiscal year 2012 to fiscal year 2016 and 
will achieve this goal, in part, with end strength reductions in the 
Army.
    What is your understanding and assessment of the DOD efficiency 
initiatives and the additional $78.0 billion cut to the top line?
    Answer. The Army must do its part in our national effort to reduce 
the Federal budget deficit and improve our economic posture. The Army 
exceeded Secretary Gates' efficiencies guidance target of $28.3 billion 
by achieving over $29.5 billion in efficiencies and applied these 
savings to enhance capabilities and improve quality of life for our 
soldiers and families.
    Question. In your view, what are the major risks for the Army 
associated with these reductions and, if confirmed, how would you 
propose to manage those risks?
    Answer. The projected reductions in the Army's permanent Active-
Duty end strength that are part of the DOD's $78 billion top-line 
decrease are based on an assumption that America's ground combat 
commitment in Afghanistan would be reduced by the end of 2014, in 
accordance with the President's strategy. As we reduce end strength, we 
must continue to assess the impacts to our current and future 
requirements. This also applies to our civilian workforce. If I am 
confirmed, I will continue to review the status of efficiencies with 
particular focus on areas we assess as medium to high risk of 
implementing. The Army reviews status of efficiencies with particular 
focus on areas we assess as low to high risk of implementing. Reviews 
are conducted monthly to ensure that we are able to evaluate plan 
development, milestone achievement, and resource execution.
    Question. Harvesting savings through process improvements and 
efficiencies has a mixed record of success in DOD. In your view, how 
likely is it that the planned savings will be achieved?
    Answer. I do know that the Army is working to ensure successful 
implementation or continuation of all efficiencies and related 
initiatives. As I understand it, comprehensive Capability Portfolio 
Reviews and the Task Forces commissioned by the Secretary of the Army 
and the Chief of Staff on such key topics as the Generating Force, 
utilization of the Reserve components, and improved installation 
management are aggressively pursuing these efficiencies. If confirmed, 
I will be in a better position to determine if the Army's objective 
will be achieved. I feel strongly, however, that we have to make sure 
that we achieve real savings through realistic and obtainable methods 
and goals.

                               MODULARITY

    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. Although somewhat smaller in size, modular combat brigades 
are supposed to be just as, or more capable than the divisional 
brigades they replace because they will have a more capable mix of 
equipment--such as advanced communications and surveillance equipment. 
To date, the Army has established over 90 percent of its planned 
modular units, however, estimates on how long it will take to fully 
equip this force as required by its design have slipped to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. I know the Army is almost complete with transformation and 
is currently assessing the effort. I personally believe that modular 
transformation has increased the Army's ability to meet combatant 
commander requirements and national security strategy objectives by 
providing tailored formations and leaders who are accustomed to 
building teams based on changing requirements. It has enabled us to 
sustain operations in Iraq and Afghanistan. But after almost 6 years 
since the beginning of the modularity transition, we must incorporate 
and capitalize on lessons learned.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy?
    Answer. If confirmed, I will continue to review Army plans and 
strategies, including the modular transformation strategy, force 
structure, and modernization to ensure the Army continues to provide 
the joint force with the best mix of capabilities to prevail in today's 
wars, and engage to build partner capacity, support civil authorities, 
and deter and defeat potential adversaries.
    Question. What is your understanding and assessment of the 
employment and performance of modular combat brigades and supporting 
units in Operations Iraqi Freedom, New Dawn, and Enduring Freedom?
    Answer. As the Multi-National Corps-Iraq, Multi-National Force-
Iraq, and U.S. Forces-Iraq commander, I was extremely pleased with the 
employment and performance of the modular brigades. Soldiers from 
across the combat, combat support, and combat service support 
formations were able to adapt, change, and react to the ever-changing 
operational environment. We also learned some key lessons that must be 
reviewed. If confirmed, we will review and incorporate these lessons 
into the modular force.
    Question. What changes, if any, would you propose to the modular 
design, the mix of combat and supporting brigades, or modular unit 
employment to improve performance or reduce risk?
    Answer. We are currently working with current and former commanders 
to examine our organizations to see if they are the best we can 
provide. We are continuously looking at alternate force designs and 
force mixes to see how we can improve, in both effectiveness and 
efficiency, our force structure. If confirmed, I will ensure that we 
look at span of control and training and readiness oversight paradigms 
in order to provide the most effective and efficient force to the 
combatant commanders.
    Question. With respect to the Army's modular combat brigade force 
structure design, General Dempsey's June 2011 pamphlet titled: ``CSA's 
Thoughts on the Army's Future,'' directs the Army to assess the 
feasibility of adding a third maneuver battalion to each heavy and 
infantry brigade where there are only two maneuver battalions now.
    What is your understanding and assessment of the need to add a 
third maneuver battalion to the modular heavy and infantry brigades?
    Answer. The Army is currently conducting analysis on this potential 
organizational change through a deliberate and holistic process. I am 
personally in favor of a third maneuver battalion based on my 
experience in combat, stability, and humanitarian missions, but I will 
wait to see the results of the ongoing analysis in order to make a more 
informed decision.
    Question. If confirmed, how would you propose to implement a 
decision to add a third maneuver battalion to the heavy and infantry 
combat brigades? What force structure or capabilities would you propose 
to reduce in order to increase maneuver forces within the combat 
brigades?
    Answer. If confirmed, I will review the analysis of the modular 
brigade designs and the associated force mix, including the number and 
type of brigades. I will discuss this with commanders in order to make 
an informed decision on the future force structure and design of our 
combat brigades.

                        ACTIVE-DUTY END STRENGTH

    Question. The Army has increased its Active-Duty end strength over 
the last several years to meet current, and what was believed to be 
future, demands of operational requirements. Authorized Active-Duty 
Army end strength is now 569,400. The Secretary of Defense has 
announced Army Active-Duty end strength reductions beginning this year 
through 2014 of 22,000 soldiers followed by another 27,000 beginning in 
2015. The fiscal year 2012 budget starts this reduction by requesting 
7,400 fewer soldiers.
    In your view, what is the appropriate Army Active-Duty end strength 
needed to meet today's demand for deployed forces, increase non-
deployed readiness, build strategic depth, and relieve stress on 
soldiers and their families?
    Answer. I know the Army is continuously assessing the factors that 
affect end strength including assigned missions, operational demands, 
unit readiness, soldier and family well-being, Reserve component 
capability and capacity, and fiscal constraints in order to determine 
required Active-Duty end strength. If confirmed, I will work with the 
Secretary of Defense and the Secretary of the Army to determine the 
appropriate Army Active-Duty end strength based on our National 
Military Strategy and contributions to the Joint Force.
    Question. In your view, what is the appropriate Army Active-Duty 
end strength needed to meet the likely future demand for deployed 
forces, maintain non-deployed readiness, ensure ground force strategic 
depth, and avoid increasing stress on soldiers and their families?
    Answer. I am not yet prepared to provide you with an answer on 
future Army end strength. If confirmed, this will be a priority focus 
of mine.
    Question. Plans for the reduction of Army end strength assumes that 
the cuts will be made gradually over several years.
    What, in your view, are the critical requirements for the 
management of this end strength reduction to ensure that should 
strategic circumstances change the cuts can be stopped and, if 
necessary, reversed?
    Answer. End strength reductions should not be automatic. They are 
conditions based and will require periodic assessment. If confirmed, I 
will work with Secretary McHugh and the Army leadership to develop a 
plan that will allow us to accomplish current and projected missions, 
balance the well-being of soldiers and families, and keep us prepared 
to meet unforeseen operational demands by retaining the best leaders 
and sustaining the optimal force structure.
    Question. The gradual reduction of end strength may provide a hedge 
against an unforeseen contingency requiring sufficient and available 
Army forces, however, savings from the reduction of forces could be 
realized sooner and with greater long-term advantages with faster 
implementation.
    What, in your view, are the most important advantages and 
disadvantages of faster end strength reductions?
    Answer. I believe the Army's deliberate and responsible draw-down 
plans should proceed at a pace necessary to ensure mission success, the 
well-being of soldiers and families, compliance with directed resource 
constraints and flexibility for unforeseen demands.
    The advantage of drawing down faster would be the flexibility to 
invest in other required areas. The disadvantages lie in the reduced 
flexibility for meeting unforeseen demands and the ability to maintain 
the skills and quality of the remaining force.
    We want to be able to make sure that we have the force necessary to 
meet the needs of the National Command Authority.
    Question. End strength reductions totaling 49,000 soldiers are 
likely to require force structure reductions.
    If confirmed, how would you propose to reduce Army force structure, 
if at all, to avoid the problems associated with a force that is over-
structured and under-manned?
    Answer. I would continue to implement the Total Army Analysis 
process to ensure Army force structure contains required capability and 
capacity to meet current and future operational requirements. I am 
dedicated to ensuring that we have a quality force that is trained and 
equipped to meet the needs of our future security challenges.
    Question. How will these planned end strength reductions impact the 
Army's plans for overseas basing of its units?
    Answer. In my present position, I have not had a chance to examine 
the potential impact of end strength reductions on overseas basing. If 
confirmed, I will address this as part of the Army's continuing force 
structure assessment.
    Question. The Army has had two other major post-conflict end 
strength reductions in the last 40 years: after Vietnam and after 
Operation Desert Storm.
    What, in your view, are the critical elements of the planning and 
management of a major force reduction to ensure that the Army as a 
whole is not crippled, impacting ongoing operations or general 
readiness?
    Answer. Today's environment is very different than the one 
following Operation Desert Storm. There are significant uncertainties 
in many regions. We are facing a significantly greater number of 
regional and transnational threats and hot spots that could pose a 
concern for our national security; a sharp and distinct contrast to the 
early 1990s. Therefore, end strength reductions must be conditions 
based, well thought out and executed deliberately and responsibly. The 
Army's plan should ensure accomplishment of its assigned missions, 
operational readiness for future demands, and resource constraints 
while ensuring the sustainment of the All-Volunteer Force.
    Question. If confirmed, what actions would you take to ensure that 
the planning and management of an end strength reduction minimizes the 
negative impact on the readiness of the Army and soldier families?
    Answer. Whatever decisions are made, we must ensure that we have a 
decisive, quality Army that is trained, ready, and optimally equipped 
while sustaining a healthy environment for our soldiers and families 
which allows them to thrive and grow.
    Question. Does the Army have the legislative authority it needs to 
properly shape the force as part of the personnel drawdown?
    Answer. I am not aware of any specific issues, but if confirmed, I 
will assess this area to ensure the Army has the appropriate 
authorities necessary. Should I determine the need for changes, I will 
work with Secretary McHugh and Congress to identify any needed 
authorities.

                             STRATEGIC RISK

    Question. Do you believe that the extended pace and scope of 
operations in Iraq and Afghanistan create increased levels of strategic 
risk for the United States based on the lack of available trained and 
ready forces for other contingencies?
    Answer. It is well known that the extended pace and scope of combat 
and other contingency operations over the last 10 years have created a 
demand on our forces that exceeded the previously programmed available 
mission forces. As the Army looks to drawdown in both theaters and 
adjust the boots-on-the-ground to dwell ratios, units will have more 
time to reset, train, and prepare for full spectrum operations. This in 
turn will allow for greater flexibility to meet our national security 
challenges.
    Question. If so, how would you characterize the increase in 
strategic risk in terms of the Army's ability to mobilize, deploy, and 
employ a force for a new contingency? In your view, is this level of 
risk acceptable?
    Answer. The Army would be challenged to generate responsive combat 
power for an additional unforeseen contingency. A concerted effort to 
reduce risk created by unsustainably high deploy-to-dwell ratios is 
required to ensure we maintain a high state of readiness and restore 
strategic depth in our force given these demands. The Army's plan to 
reduce this risk to the force is contingent upon achieving sustainable 
deploy-to-dwell ratios over the long-term, maintaining assured access 
to the Reserve component, adequately providing for soldiers, civilians, 
and families, and receiving reliable, timely, and consistent funding to 
reset depleted equipment sets.
    Question. What is the impact of the decision to decrease Army 
forces committed to Afghanistan on our ability to meet our security 
obligations in other parts of the world?
    Answer. As we continue to reduce our commitments in Iraq and 
Afghanistan, it allows us the ability to reset and train forces to make 
them available to meet other world-wide contingencies and thereby 
reduce the risk. But this will take some time.
    Question. How and over what periods of time, if at all, will 
reductions to Army end strength increase or aggravate this risk?
    Answer. Any potential reductions beyond the 27,000 will be 
thoroughly assessed through our Total Army Analysis modeling efforts to 
understand the risks involved given anticipated mission requirements. 
We must be prudent in our approach to budget cuts and ensure we 
adequately man, train, and equip without hollowing out the force. With 
tightening budgetary constraints, our intent is to arrive at the right 
mix of capabilities to meet current demands as well as future 
challenges and ensure we continue to provide national leaders options 
in a crisis. We will achieve this by ensuring our forces have the 
greatest possible versatility while maintaining core capabilities. Any 
of these reductions must be tied to consideration of the actual 
drawdown of forces in Iraq and Afghanistan.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. As we look to the future, it is my view that we have to 
develop an Army that provides depth and versatility to the Joint Force, 
is more efficient in its employment, and provides greater flexibility 
for our national security decisionmakers. Our efforts must be tied to 
the National Military Strategy and our anticipated strategic and 
operational environment.

            INSTITUTIONALIZING SUPPORT FOR IRREGULAR WARFARE

    Question. A major objective of the Department over recent years has 
been increasing emphasis on lower-end, irregular, counterinsurgency, 
and stability-type operations. All of which are areas that place a high 
premium and demands on Army capabilities. In order to ensure that a 
rebalance achieves this objective, and perhaps more importantly is then 
sustainable, Secretary Gates has stressed the need for the Department 
to ``institutionalize and finance'' the support necessary for the 
irregular warfare capabilities that have been developed over the last 
few years and will be needed in the future.
    What, in your view, does it mean to institutionalize capabilities 
and support for irregular warfare capabilities in the Army?
    Answer. Institutionalizing Irregular Warfare means developing the 
appropriate doctrine, organizations, materiel solutions, leader 
developments, personnel assignments and facilities (DOTMLPF) into the 
Army. Thus far, we have institutionalized Irregular Warfare into the 
Army through our Leader Development, Individual, and Collective 
Training and Doctrine Development.
    Question. What is your understanding and assessment of Army efforts 
to date to institutionalize and support these capabilities?
    Answer. The Army is in the process of creating specified proponents 
responsible for the institutional management for key tasks associated 
with Irregular Warfare:

    1.  The U.S. Army Peacekeeping and Stability Operations Institute 
at Carlisle Barracks charged with maintaining our doctrine on stability 
operations and coordinating with other government agencies to 
facilitate interagency cooperation required to ensure a whole-of-
government approach to the conduct of stability operations.
    2.  The Army Irregular Warfare Fusion Cell at Fort Leavenworth 
charged with coordinating all IW activities within TRADOC, but in 
particular with maintaining and training doctrine on counterinsurgency.
    3.  The U.S. Army Information Operations Proponent at Fort 
Leavenworth charged with maintaining doctrine on Inform and Influence 
Activities and conducting a course to train officers specifically on 
information operations.
    4.  We are creating a proponent for Cyber/Electromagnetic 
Activities at Fort Leavenworth to write doctrine for Cyber/
Electromagnetic Activities and manage the entire DOTMLPF process for 
Cyber/EM.
    5.  The Security Force Assistance Proponent provides input on 
working by, with and through host nation security forces to increase 
our partners' capability and capacity. This proponent is located at 
Fort Leavenworth, KS.

    From a doctrine standpoint we have made significant strides in 
creating a mindset that treats all of the above mentioned activities as 
central to how the Army conducts operations. Specifically, within 
doctrine we have done the following:

    1.  The Army's senior operations manual, FM 3-0, has elevated 
stability tasks to be co-equal with combat tasks, in line with DODD 
3000.05. FM 3-0 also designates inform and influence activities and 
cyber/electromagnetic activities as key tasks within the mission 
command warfighting function.
    2.  We published a separate FM on Stability Operations that goes 
into great detail on the tasks of stability operations and how they fit 
within a broader construct of the whole-of-government approach. Further 
we are in the process of writing an additional manual on stability 
tasks that goes into more detail on the specifics at the tactical level 
of tasks directly related to stability operations.
    3.  We published FM 3-24, Counterinsurgency, that laid out a new 
and innovative approach to the conduct of counterinsurgency campaigns.
    4.  We published an FM on Information Operations tactics, 
techniques, and procedures, that is currently being updated to account 
for lessons learned in our current conflicts.
    5.  We published an FM on Security Force Assistance that lays out 
guidelines and specific tasks for conducing security force assistance 
operations to build partnership capacity. This manual too is being 
updated based on the latest lessons learned from active operations.
    6.  We are writing doctrine on the conduct of Cyber/Electromagnetic 
Activities.

    The Center for Army Lessons Learned has collected, collated, and 
distributed numerous Handbooks and Newsletters on Irregular Warfare 
related topics, to include:

    1.  The Operation Enduring Freedom-Philippines handbook sharing 
best practices and lessons learned from Special Operations Forces that 
are assisting Philippine Military and Police forces conducting 
Counterinsurgency.
    2.  The Army Security Force Assistance handbook that shares best 
practices and lessons learned from Iraq, Afghanistan, Horn of Africa, 
Trans Sahel, and the Philippines.

    The information collected by the Center for Army Lessons Learned 
helps to inform what should be incorporated into new Doctrine and 
Tactics manuals.
    From an organizational standpoint we have also made significant 
changes in our organizational structure to account for all of the 
general tasks mentioned above:

    1.  All of our division, corps, and theater Army headquarters have 
been given additional staff structure specifically to address, inform, 
and influence activities, increased civil affairs capability, increased 
engineer staff to support infrastructure development, and restoration 
of essential services.
    2.  We have created the 1st Information Operations Brigade to 
assist units in the conduct of inform and influence activities, the 
Army Asymmetric Warfare Group to support rapid adaptation to the 
activities of hybrid threats, and U.S. Army Cyber Command to execute 
cyber/electromagnetic activities for the Army.
    3.  We created a specialized training brigade to prepare 
individuals and units to conduct security force assistance missions.
    4.  We are active participants in the Joint Improvised Explosive 
Device Defeat Organization.

    Training the Army starts with the time that soldiers enter the 
Army, all the way through their Professional Military Education (PME). 
We've incorporated Irregular Warfare into basic training scenarios for 
use during initial military training by both soldiers and officers, and 
have counterinsurgency training and education for students attending 
the War College. Irregular Warfare is part of our preparation for units 
deploying to Afghanistan and Iraq:

    1.  Scenarios at our collective training centers include Stability 
Operations, Security Force Assistance, Counterinsurgency, and 
Counterterrorism.
    2.  All Brigade Combat Teams attend a 5-day Counterinsurgency 
seminar at Fort Leavenworth taught by the Army's Counterinsurgency 
Center.

    Question. In your view, what are the obstacles, if any, to 
institutionalizing this kind of support, and what will be necessary to 
overcome them?
    Answer. The biggest obstacles will be downsizing the right 
formations for our mission and requirements. As pressures for cuts in 
defense spending and force structures increase, we will have to assess 
which of these capabilities we retain and at what level. Finding the 
right mix will be a challenge. We can maintain our doctrine and lessons 
learned databases fairly easily, but retaining all of the necessary 
force structure will be more challenging.
    Question. While force structure and program changes may be 
necessary, they are unlikely to prove sufficient to achieve full 
institutionalization. The greater challenge may be found in changing 
Army culture, attitudes, management, and career path requirements and 
choices, for example, through adjustments to organization, training, 
doctrine, and personnel policies.
    In your view, what are the most important changes, if any, that 
might be necessary to complement programmatic changes in support of the 
further institutionalization of capabilities for irregular warfare in 
the Army?
    Answer. The most important thing we need to do is to ensure that we 
educate our leadership through professional military education about 
the conduct of irregular warfare, to include COIN, stability 
operations, inform and influence activities, cyber/EM activities, and 
security force assistance. We must also maintain our doctrine and 
lessons learned that we've gained from almost a decade of active 
operations. We need to keep this knowledge-base updated, based on only 
our own operations, but also those of our coalition partners. Through 
education and maintaining a sound knowledge base, we'll be able to 
respond effectively to a wide range of tasks in the future. Much as the 
Army did between the two world wars, we must have a highly professional 
education system that educates future leaders on the hard earned 
lessons of this past decade so we don't repeat the mistakes of post-
Vietnam of thinking these kinds of operations are behind us.
    We have to retain the flexibility, adaptability, and agility to 
operate both in missions requiring maneuver over-extended distances and 
in missions requiring the establishment of security over wide areas 
regardless of what kind of threats populate the battlefield.
    Question. Institutionalizing support for irregular, 
counterinsurgency, and stability capabilities in the force does not 
mean ignoring the requirement for the Army to be trained, equipped, and 
ready for major combat at the high-end of the full spectrum of 
operations.
    If confirmed, how would you propose to prioritize and allocate the 
Army's efforts and resources to ensure that the force is prepared for 
major combat while at the same time it increases and institutionalizes 
support for irregular, counterinsurgency, and stability operations?
    Answer. The future battlefield will be populated with hybrid 
threats--combinations of regular, irregular, terrorist, and criminal 
groups. We must train and educate our leaders and units to understand 
and prevail against hybrid threats. We are training and educating our 
soldiers to understand that they must be capable of both combined arms 
maneuver and wide area security in this hybrid threat environment. In 
training, we must replicate the threats and conditions they are likely 
to face in their next mission. For 10 years, that has meant irregular 
threats and conditions common in the wide area security role that 
supports counterinsurgency operations.
    Question. Do you anticipate that the Army will continue to train 
and equip general purpose force brigades for the ``advise and assist 
brigade (AAB)'' mission after the wars in Iraq and Afghanistan come to 
an end?
    Answer. I was involved in developing the initial requirements for 
the advise and assist brigades when I was the Multi-National Force-Iraq 
commander. The flexibility of the modular brigades allowed us to 
organize, train, and equip for Security Force Assistance activities. I 
anticipate that there will be an ongoing requirement for Security Force 
Assistance activities of the type carried out by these brigades into 
the future. If confirmed, I will continue to assess requirements and 
work with Congress to ensure we have the resources and flexibility 
required to accomplish these missions.
    Question. If so, what mission essential task list or other training 
guidance changes do you plan to institutionalize this mission set in 
training for the general purpose force brigades?
    Answer. If confirmed, I will work with our joint partners to 
identify the mission essential tasks for Security Force Assistance and 
incorporate them into the Unified Joint Task List and Army Unified Task 
List.
    Question. Do you foresee that general purpose force brigades or 
other formations will be regionally aligned to carry out an AAB-type 
mission? If so, what changes to unit training and equipping based on 
the requirements of the Army Force Generation (ARFORGEN) model will be 
necessary to support regional alignment?
    Answer. As we look to the future, I believe some brigades may be 
regionally aligned. This will depend on combatant command requirements. 
The number and type of brigades will depend upon what we have available 
after meeting the operational requirements in the CENTCOM AOR. If 
confirmed, I will work with Secretary McHugh to determine the best 
allocation to support operational requirements. The ARFORGEN model and 
our modular design are well-suited to the kind of adaptations that will 
be required to meet Security Force Assistance requirements in the 
future.

                            LESSONS LEARNED

    Question. What do you believe are the major lessons that the Army 
has and should have learned from Operation Enduring Freedom (OEF), 
Operation Iraqi Freedom (OIF), and Operation New Dawn (OND) regarding 
its title 10, U.S.C., responsibilities for manning, training, and 
equipping the force?
    Answer.

    1.  We must ensure that our future leaders understand their 
environment. A combination of socio-economic, political, cultural, and 
military factors will affect operations at all levels. We must develop 
leaders who are adaptable and flexible in solving complex problems.
    2.  We have learned that soldiers require more than a year to fully 
recover from extended deployments and to prepare for another 
deployment. We must do better at identifying and incorporating lessons 
learned at the tactical, operational, and strategic levels. We have 
learned that the ability to adapt rapidly is the key to success in 
current and future operational environments.
    3.  We must have a fully integrated Reserve component to meet our 
operational needs.
    4.  ARFORGEN works, but must constantly be reviewed and adjusted to 
the operational environment.

    Question. If confirmed, which of these lessons, if any, would you 
address as a matter of urgent priority?
    Answer. They are equally important and all must be addressed in 
order to ensure our Army remains as effective and efficient in the 
future.

                         EQUIPMENT AVAILABILITY

    Question. Both deploying and non-deploying Active and Reserve 
component Army units are training without all their required equipment. 
Deploying units do not receive some of their equipment until late in 
their pre-deployment training cycle or as they arrive in theater.
    In your view, has deployment of additional brigades to Afghanistan 
increased the strain on maintenance systems and further reduced 
equipment availability for training?
    Answer. With our commitments in Iraq and Afghanistan, we have a 
significant requirement and responsibility to ensure the most modern 
and capable equipment is available to our forces in combat. This has at 
times limited equipment availability for training. ARFORGEN has helped 
us to manage the movement of equipment for training. It is our 
responsibility to ensure units are properly trained upon deployment. As 
force generation requirements reduce, this will mitigate some of the 
risk.
    Question. What do you expect will be the impact, if any, of our 
drawdown from Iraq and Afghanistan in this regard?
    Answer. The drawdown from Iraq has already improved availability of 
equipment for units to conduct predeployment training. The future 
drawdown in Afghanistan will also help if we sustain the resources to 
do reset.
    Question. What is your understanding and assessment of the 
availability of modern equipment to fully support the predeployment 
training and operations of deploying units?
    Answer. With our commitments in Iraq and Afghanistan, we have a 
significant requirement and responsibility to ensure the most modern 
and capable equipment is available to our forces in combat. This has at 
times limited equipment availability for training. ARFORGEN has helped 
us to manage the movement of equipment for training. It is our 
responsibility to ensure units are properly trained upon deployment. As 
force generation requirements reduce this will mitigate some of the 
risk.
    Question. What do you see as the critical equipment shortfalls, if 
any, for training and operations?
    Answer. I understand that the Army is short Unmanned Aerial Systems 
and some non-Line of Sight communications equipment. I am told that 
light infantry equipment shortfalls in Afghanistan are being addressed 
through existing processes. As we continue to reset equipment returning 
from Iraq we will see a steady improvement in on-hand equipment for 
units training for and deploying in support of operational missions.
    Question. What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need to train and 
operate?
    Answer. If confirmed, I will continue to support the ARFORGEN Model 
of phased equipping through which the Army intensively manages our 
equipment on-hand to ensure next deploying units, from all components, 
have sufficient equipment for training and deployment. If confirmed, I 
will continue our capability portfolio reviews to evaluate our 
priorities against mission requirements and adjust our resource 
allocations to ensure the Army continues to strike the critical balance 
between having enough modern equipment to fully support pre-deployment 
training and operations in theater.

                         EQUIPMENT REPAIR/RESET

    Question. Congress provided the Army with approximately $15 to $17 
billion annually to help with the reset of nondeployed forces and 
accelerate the repair and replacement of equipment. However, the amount 
of reset funding requested for DOD in fiscal year 2012 decreased to 
$11.9 billion from the fiscal year 2011 request of $21.4 billion.
    In your view, is this level of funding sufficient to not only 
prepare Army forces for operations in Afghanistan but to also improve 
the readiness of non-deployed forces for other potential contingencies?
    Answer. The level of funding appears sufficient. In my experience, 
Congress has been very supportive of the Army's reset requests, 
providing the Army with what we require to reset our redeploying 
forces. It is true that in fiscal year 2010 and fiscal year 2011, the 
Army was appropriated approximately $10 billion for reset, and in 
fiscal year 2012, the request is less than half that. However, with the 
drawdown in one theater and more efficient management of materiel 
moving in and out of Afghanistan, our annual reset requirements have 
decreased. The Army will continue requiring reset funding 2 to 3 years 
beyond end of operation in both theaters to move all materiel through 
repair programs.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. It is my understanding that our repair depots are currently 
fully engaged and have the ability to meet a surge in our repair 
requirements as necessary.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. The Army has the needed capacity through certain measures, 
such as adding additional shifts, contract augmentation or rebalancing 
workload that could be used to increase production at our facilities. 
This will, of course, also increase cost. At this time, I do not know 
if such measures are necessary. If confirmed, I will look into this 
matter further.
    Question. What impact is this level of funding likely to have, if 
any, on the ability of Army National Guard units to respond to Homeland 
defense and support to civil authorities' missions?
    Answer. I am told that the decrease in the Army's reset funding 
requirements for fiscal year 2012 should have no impact on the Army 
National Guard's ability to respond to Homeland defense missions and 
provide support to civil authorities. I also understand that Reserve 
component reset requirements are fully funded.

                     DEPLOYMENT AND ROTATION CYCLES

    Question. Over the last year, the Active Army's ratio of time spent 
deployed to time at home station has improved from 1:1 to 1:1.6--that 
is for each year deployed a soldier spends about 1\1/2\ years at home 
station. The previously stated Active Army objective was 1:2 whereby 
soldiers could expect to be home for 2 years for each year deployed. 
The Reserve component objective is 1:5 where soldiers can expect to be 
home for 5 years for each year deployed. In General Dempsey's June 2011 
pamphlet titled ``CSA's Thoughts on the Army's Future,'' he sets a new 
dwell time goal of 27 months at home for every 9 months deployed as 
soon as possible.
    What is your understanding and assessment of the Army's near- and 
intermediate-term plans for deployment length (or boots-on-the-ground 
(BOG)) and dwell time?
    Answer. The Army utilizes a rotational ARFORGEN readiness model 
that effectively and efficiently generates trained and ready forces for 
combatant commanders at sustainable levels. ARFORGEN also provides 
ready forces for unforeseen contingencies. Starting in fiscal year 
2012, the Army's intermediate goal for BOG is 1 year deployed to 2 
years dwell at home station for the Active component and 1 year 
deployed to 4 years dwell at home station for Reserve component 
soldiers. The Army's long-term goals are 1 year deployed with 3 years 
at home station for the Active component and 1 year deployed with 5 
years at home station for Reserve component soldiers. The Army is 
moving to a 9-month BOG, which I support. It should begin to reduce 
some of the strain on our soldiers and families. If confirmed, we will 
constantly monitor the implementation of the 9-month BOG and its impact 
on dwell.
    Question. What impact do you expect the proposed troop reductions 
in Iraq and Afghanistan to have on the dwell time of Army soldiers? Is 
it possible that the reduction of demand for Army forces in Iraq alone 
will allow the Army to achieve the 1:2 dwell time goal by the end 2011, 
or the 1:3 dwell time goal (whether in terms of months or years) by 
2014?
    Answer. Utilizing Operation New Dawn (Iraq) drawdown planning 
assumptions, projections show corps, divisions, and Brigade Combat 
Teams will continue to improve BOG/dwell and move closer to achieving 
our goals.
    Question. What is your understanding and assessment of the 
potential impact of the decision to decrease Army end strength on the 
rotation schedule and meeting the near-term dwell goal of 1:2 for 
Active-Duty Forces?
    Answer. The Army will plan to reduce its end-strength and 
restructure its force mix consistent with reductions in overseas 
contingency operations commitments and in conjunction with the needs of 
the Department and the combatant commanders. Our intent is to arrive at 
the right mix of capabilities to meet current demands as well as future 
challenges, within budgetary constraints. Based on the current 
strategic guidance and projected future requirements, the Army should 
be able to maintain its progress to reach its Boots on Ground to dwell 
ratio goal and have sufficient troops to respond to unforeseen events. 
But if our overseas contingency operations commitments differ from 
those planned, it will impact BOG/dwell and availability of forces.
    Question. How, in your view, will the proposed reductions in Iraq 
and Afghanistan impact the demand on Army Reserve and National Guard 
troops? In your view, how might a reduction in demand, if any, for Army 
Reserve and Guard troops impact their availability to respond to 
contingencies for Homeland defense and support to civil authorities?
    Answer. The return of these Army National Guard forces to State 
control should provide the Governors and Adjutants General with 
increased forces to conduct Homeland defense, disaster response, and 
defense support of civil authorities. These forces will be better 
trained and more experienced due to their Iraq and Afghanistan combat 
deployments. Although the National Guard has been able to meet all 
disaster relief requirements, the return of forces will allow more 
flexibility to accomplish local missions.
  capabilities of special operations forces and general purpose forces
    Question. The 2010 Quadrennial Defense Review (QDR) called for 
increased counterinsurgency, counterterrorism, and security force 
assistance capabilities within the general purpose forces (GPF).
    What is your assessment of the QDR with regard to the mix of 
responsibilities assigned to GPF and SOF, particularly with respect to 
security force assistance and building partner military capabilities?
    Answer. The report of the 2010 QDR struck an appropriate balance 
between the capabilities and capacity of our special operations and 
multipurpose forces. Today's demand for security force assistance and 
building partner military capabilities exceeds the capacity of our 
Special Operations Forces requiring the integration of our multi-
purpose forces with our Special Operations Forces to accomplish the 
mission. Additionally, some of the security force assistance missions, 
such as those related to building national institutions like military 
academies and logistics systems, are typically more appropriate for our 
multipurpose forces and our generating force institutions.
    Question. Do you believe that our general purpose forces need to 
become more like SOF in mission areas that are critical to countering 
violent extremists?
    Answer. Over the last 10 years our multipurpose ground forces have 
developed many of the capabilities once only inherent in our Special 
Operations Forces. Just as our multipurpose forces have improved their 
capabilities, so too have our Special Operations Forces. Both forces 
are national capabilities that must be sustained and continuously 
enhanced. They increase our flexibility and agility. The needs of our 
combatant commanders will continue to inform the degree of overlap or 
specialization required between our special operations and multipurpose 
forces.
    Question. What actions, if any, do you believe need to be taken in 
order to allow SOF and GPF to successfully share these missions in the 
future?
    Answer. In all of the geographic commands, close collaboration and 
planning between SOF and GPF will ensure optimum use of all available 
forces. Additionally, we have a process within DOD whereby combatant 
commanders identify their future needs and request the allocation of 
forces to accomplish specific tasks. Through this process--the Global 
Force Management Process--we integrate the demands and allocation of 
special operations and multipurpose forces to fill combatant commander 
needs. We should integrate combatant commander needs for both special 
operations and multipurpose forces, including their supporting forces, 
into this common process.
    Question. Are there certain mission areas that should be reserved 
for SOF only?
    Answer. Generally speaking, mission areas that require minimal 
footprint or recognized presence, operations independent of larger 
ground forces in the immediate area, or operations that place a premium 
on regional cultural awareness and negotiation skills appear best 
suited for our Special Operations Forces. While our special operations 
and multipurpose forces share much of the same skills, equipment, and 
tactics, our Special Operations Forces are generally more mature, at a 
higher skill level in these common skills, and also equipped and 
trained in unique capabilities. Where that difference is needed for 
mission success, that is where we should employ our Special Operations 
Forces.

                SPECIAL OPERATIONS ENABLING CAPABILITIES

    Question. The Commander of U.S. Special Operations Command (SOCOM) 
has described the ``non-availability'' of force enablers as the ``most 
vexing issue in the operational environment'' for SOF. A recent report 
required by the National Defense Authorization Act for Fiscal Year 2010 
(Public Law 111-84) indicated that adequately enabling SOF in the 
future will require improvements to ``the process by which SOF gains 
access to enabler support, and by synchronizing efforts with the 
Services.'' The report also stated that ``Currently, SOF units divert 
scarce organic resources to satisfy enabler requirements and accomplish 
the assigned mission. In future operating environments, the effects of 
enabler shortfalls will be further exacerbated unless SOCOM and the 
Services can better forecast the need for support, codify support 
through formal agreements, and eventually get SOF units and their GPF 
counterparts training together throughout the deployment cycle.''
    If confirmed, how would you work with the Commander of SOCOM to 
address the enabling requirements of Army SOF throughout the deployment 
cycle?
    Answer. Special Operations Forces (SOF) and general purpose forces 
have made great strides in providing integrated sourcing solutions to 
increase the overall combat effectiveness of the force. It is the early 
identification of the right mix of forces that will allow units to 
properly integrate. It is my understanding that U.S. Army Special 
Operations Command (ASOC) is refining its force generation methodology 
to build appropriate enabling support into existing ASOC formations and 
integrating requirements into the ARFORGEN process. Through this 
effort, SOF and critical enabling support will be better integrated on 
a more sustained and predictable basis. If I am confirmed, I will work 
with SOCOM and ASOC to ensure the effective and efficient 
accomplishment of our enabling requirements.
    Question. Vice Admiral William McRaven, Commander of Joint Special 
Operations Command, has stated that SOCOM needs greater personnel 
management authority to shape mid- and senior-grade SOF operators to 
meet SOCOM-defined requirements. In his view, promotions, selection for 
command, selection for advanced educational opportunities, foreign 
language testing policy, and foreign language proficiency bonus payment 
policy all differ significantly by Military Services and are all 
primarily crafted to support Services' needs.
    Do you agree that Army special operations personnel should be 
managed by SOCOM? Please explain.
    Answer. No. The Army must consider both operational needs and 
career management in order to ensure the best possible force for the 
future and not limit flexibility in managing its force. Throughout its 
operations, Special Operations Forces (SOF) have demonstrated a unique 
ability to operate in a joint and multinational environment. There are 
also Service-specific career milestones and development opportunities 
that vary based upon the individual soldier. Given these unique needs, 
the Army should retain management of all members of its force. However, 
we must work closely with SOCOM to identify those skills and 
opportunities needed so we can incorporate appropriate leader 
development programs to meet their needs.

                             ARMY READINESS

    Question. How would you characterize Army readiness in its deployed 
and non-deployed units?
    Answer. Simply stated, I believe that Army readiness is out of 
balance between deployed and non-deployed units. Deployed and deploying 
Army units are given every priority for manning, equipping, and 
training in order to achieve the combatant commander's mission 
requirements. Due to excessive demand, non-deployed Army units are used 
to provide the additive resources to ensure that deployed and deploying 
Army units can meet mission requirements. Routinely, non-deployed 
commanders are providing personnel and equipment to support deployed 
and deploying units. The effect of these actions on the force and on 
specific operational plans, in specific terms, is amply covered in the 
Chairman's Comprehensive Joint Assessment.
    Question. Do you believe the current state of Army readiness is 
acceptable?
    Answer. No. However, the Army and DOD senior leadership recognize 
that the Army operates in a fiscally constrained environment. The 
readiness of Army units, while of utmost concern to the Senior 
Leadership, must be balanced with other national security and domestic 
priorities. In light of those competing priorities, the Army has 
developed a force generation model that synchronizes available soldiers 
and resources with units during periods of predictable availability.
    Question. How do you see operations in Iraq and Afghanistan 
impacting the readiness of Army forces that may be called upon to 
respond to an attack or another contingency?
    Answer. Clearly, the current demand for Army forces coupled with 
the cumulative effect of nearly 10 years of conflict impacts the Army's 
ability and reduces our flexibility to provide forces to respond to an 
attack or other incident or disaster inside the United States. The Army 
has ``surged'' to meet additional contingencies in the past and will do 
so again in the future--but those ``surge'' operations impact the 
readiness of Army units for months and even years after completion. I 
concur with the specific and well-documented effects and examples 
covered in the Chairman's Comprehensive Joint Assessment.

                   DEPLOYMENTS AND STRESS ON THE ARMY

    Question. Many soldiers are on their fourth and some their fifth 
major deployment to Iraq or Afghanistan. Beginning in August 2008 DOD 
policy has been to limit deployments for Active component soldiers and 
mobilization of Reserve component soldiers to not longer than 12 
months.
    What is your assessment of the impact of multiple deployments of 
troops to Afghanistan and Iraq on retention, particularly among young 
enlisted and officer personnel after their initial Active Duty 
obligated service has been completed?
    Answer. The Army monitors retention very closely, as I do as a 
commander given the high operational demand and multiple deployments 
that soldiers are experiencing. Statistics reveal that multiple 
deployments to Afghanistan and Iraq are not adversely impacting 
retention.
    Since fiscal year 2005, retention rates of initial term and mid-
career enlisted soldiers in deploying units has remained above Army 
goals while retention rates among officers continue to exceed historic 
rates and outpace the preceding decade. Continuous improvements to Army 
benefits, such as world class health care advances for wounded 
soldiers, enhancements in family support programs, and additional 
monetary bonuses have encouraged large numbers of our soldiers to 
continue their commitments beyond their obligated service periods. The 
Army is focused now on retaining the highest quality soldiers and 
officers as we move forward into a period of tightly constrained 
resources decreased operational demands, and reductions in authorized 
end strength.
    Question. What are the indicators of stress on the force, and what 
do these indicators tell you about that level of stress currently? In 
addition to any other stress indicators that you address, please 
discuss suicide and divorce rates, drug and alcohol abuse, AWOLs, and 
rates of indiscipline.
    Answer. The indicators of stress on the force that the Army tracks 
continuously include: reenlistments, chapter separations, divorce, 
domestic violence, sexual assault, enlisted desertion, AWOL offenses, 
drug and alcohol enrollments, drug use, courts-martial, and suicides.
    I understand that Army discipline and misconduct rates, including 
desertion, absence without leave and courts-martial, have remained 
steady or declined in the past year while other indicators of stress on 
the force, such as substance abuse and domestic violence have 
increased. However, the significant increase in the number of soldier 
suicides is of the greatest concern. Soldiers and their families 
continue to make significant personal sacrifices in support of our 
Nation. If confirmed, I am committed to providing soldiers and families 
with a quality of life commensurate with their service and to 
continuing Army efforts to develop multi-disciplinary solutions 
directed at mitigating risk behaviors and enhancing soldier and family 
fitness and resilience.
    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. I am very concerned about the long-term health of the force 
if we are unable to achieve the appropriate deployment to dwell ratio 
for our soldiers. Adequate dwell time should help the visible and 
invisible wounds of this protracted conflict. If confirmed, I will 
closely monitor indicators of stress on the force and work to ensure 
that the Army has plans and programs to confront these issues 
appropriately.

FORMER CHIEF OF STAFF OF THE ARMY, GENERAL CASEY, STATED THAT THE ARMY 
                        WAS ``OUT OF BALANCE.''

    Question. What is your understanding and assessment of the concept 
and efforts to achieve ``balance'' for the Army?
    Answer. I understand balance to be the Army's ability to sustain 
the Army's soldiers, families, and civilians, prepare forces for 
success in the current conflict, reset returning units to rebuild the 
readiness consumed in operations and to prepare for future deployments 
and contingencies, and transform to meet future demands. With the help 
of Congress we have made progress over the past 3 years to restore 
balance. If confirmed, I will continue to work with Congress on this 
issue.
    Question. If confirmed, what actions, if any, would you take to 
achieve and sustain Army ``balance''?
    Answer. If confirmed, I will work with Secretary McHugh and Army 
leadership to adopt measures and strategies to achieve and sustain 
balance. Building and maintaining resilience among our forces will be 
one of my highest priorities.

            ``TOXIC'' LEADERSHIP IN THE ARMY (G1, ASA M&RA)

    Question. A recent press report outlined the results of an Army 
survey of leadership and morale that found 80 percent of Army officers 
and noncommissioned officers had observed and 20 percent had worked for 
a ``toxic'' leader in the last year. According to the press report, the 
survey, conducted by the Center for Army Leadership at Fort 
Leavenworth, KS, concluded that toxic leadership ``may create a self-
perpetuating cycle with harmful and long-lasting effects on morale, 
productivity, and retention of quality personnel.'' They also note 
that, ``there is no indication that the toxic leadership issue will 
correct itself.''
    What is your understanding and assessment of ``toxic'' leadership 
in the Army and its impact or potential impact, if any, on morale, 
productivity, and retention of quality personnel?
    Answer. Throughout my career my top priority has been to create an 
environment where individual soldiers and leaders feel empowered and a 
central part of the organization to which they are assigned. Leadership 
built on trust, values and standards is essential to our success. Our 
Army leaders must be disciplined, positive, tolerant, supremely 
competent, and exemplars of our system of values. Anything less 
negatively impacts morale, unit effectiveness, and individual soldiers' 
willingness to continue service.
    If confirmed, we will review and assess how we continue to prepare 
our leaders for command and will develop practices that will allow us 
to identify ``toxic'' leader environments and take action to correct.
    Question. If confirmed, what actions would you propose to take, if 
any, to deal with the risk to the Army posed by ``toxic'' leadership?
    Answer. Leadership education is a critical component in ensuring a 
positive command climate. The Army's professional military education 
curricula and pre-command specific training address this important 
aspect of leadership. If confirmed, I will work with my staff to ensure 
that the Army continues looking at itself to determine if it is placing 
appropriate emphasis at all levels of military education on the 
interpersonal dynamics of positive command climate.
    Question. What are your views on the benefits and risks of 
incorporating input from both subordinates and peers, also known as 
``360-degree'' evaluations, into the officer and non-commissioned 
officer evaluation and promotion selection systems?
    Answer. Constructive criticism from peers and subordinates can be 
an invaluable tool to help leaders see themselves from different 
perspectives. It is my understanding that the Army is currently 
evaluating options for revision of its Performance Evaluation System 
and that a tool utilizing the Army's Multi-source assessment and 
feedback/360 degree will be incorporated beginning on 1 October of this 
year. There will also be a requirement to discuss the 360 degree 
assessment feedback as part of periodic performance counseling. The 
Army is also considering inclusion of a 360 degree assessment into the 
Brigade Command Selection process. I look favorably on changes to our 
performance evaluation system that enhance the development of leaders 
without risking fair and equitable treatment of all our soldiers.

              RESERVE COMPONENTS AS AN OPERATIONAL RESERVE

    Question. What is your understanding and assessment of the Army's 
Reserve components as an Operational Reserve, as opposed to its 
longstanding traditional role as a Strategic Reserve?
    Answer. The demand for U.S. ground forces over this past decade has 
required continuous use of Active component and Reserve component 
forces in order to meet the Army's operational requirements. The 
Reserve component is no longer solely a Strategic Reserve. Current and 
projected demand for Army forces will require continued access to the 
Reserve component. Mobilization and operational use of the Reserve 
component will continue for the foreseeable future.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the Army Reserve and Army National Guard as a 
relevant and capable Operational Reserve?
    Answer. In my opinion, the Army must ensure continued access to the 
Reserves as an essential part of the Total Force. If confirmed, I will 
work to ensure they have the necessary training and equipment to 
accomplish all missions. Maintaining an appropriate level of resourcing 
for the Operational Reserve and mobilizing these forces on a 
predictable and recurring basis will be important to our success.
    Question. What are your views about the optimal role for the 
Reserve component forces in meeting combat missions?
    Answer. Reserve component forces play a critical role in enabling 
the Joint Force Commanders to meet assigned missions. Today's force is 
structured to balance maneuver capability in the Active component with 
a majority of the enablers in the Reserve component. This balance 
should provide capabilities to meet operational requirements in 
sustained operations.
    In addition, the Reserve components are well-suited for those 
operational missions that are recurring and predictable, such as 
enduring overseas contingency operations, support of treaty 
obligations, Homeland defense and theater security cooperation 
requirements.
    Question. In your view, should DOD assign Homeland defense or any 
other global or domestic civil support missions exclusively to the 
Reserve?
    Answer. Reserve component forces are uniquely positioned to be the 
first responder to these missions, however, the Army's Total Force must 
be able to execute Homeland defense or other global domestic support 
missions.
    Through experience we've found that the Army works best as a Total 
Force, sharing requirements and responsibilities across the formation 
and between components. Although Reserve component forces are uniquely 
positioned to be the first military responder to these missions, the 
Army's Total Force must be able to execute Homeland defense as well as 
other global and domestic support missions.
    Question. In your view, how will predictable cycles of 1-year 
mobilized to 5 years at home affect the viability and sustainability of 
the All-Volunteer Reserve Force?
    Answer. Once the Army can restore its balance and stress on the 
force has been significantly reduced, a predictable cycle that ensures 
full recovery and training will support the viability and 
sustainability of the All-Volunteer Reserve Force. The Army's long-term 
goal of 1-year deployed to 5 years at home station for Reserve 
component units is optimal in supporting both the unit's ability to 
effectively generate readiness, and to ensure soldier and family well-
being and employability.
    Question. Advocates for the National Guard and Reserve assert that 
funding levels do not meet the requirements of the Reserve components 
for operational missions.
    Do you agree that the Army's Reserve components are inadequately 
resourced, particularly in view of the commitment to maintaining an 
Operational Reserve?
    Answer. Nine years of mobilization and employment for current 
contingencies has produced the most experienced, ready Reserve 
component forces in history and yielded unprecedented readiness levels. 
The Army must continue to adequately resource the Reserve command for 
training and operational requirements. Failure to resource an 
Operational Reserve may result in unit and enabler shortfalls to the 
total Army.

                         NATIONAL GUARD ISSUES

    Question. What is your understanding and assessment of changes in 
the global and domestic roles and missions of the Army National Guard 
and the National Guard Bureau in the last decade?
    Answer. The Army National Guard is and will remain a critical 
component of the Army. It provides depth to the Army and links us to 
the local U.S. population. During the last 10 years, the Army National 
Guard has transformed from a Strategic Reserve to an operational force, 
a trend which should continue with predictable operational use of the 
Reserve components. The Army National Guard, with direction and 
oversight provided by the National Guard Bureau, has proven to be 
integral to the Army's Total Force.
    Question. What is your understanding and assessment of the Army's 
commitment to fully fund Defense Department requirements for Army 
National Guard equipment?
    Answer. The Army is committed to fully equipping the Army National 
Guard to DOD requirements, and I understand significant progress in 
achieving both modernization and interoperability has been made as the 
Army National Guard has transformed to an operational force. If 
confirmed, I will maintain emphasis on the importance of the Army 
National Guard and its readiness as a part of the Army Total Force.
    Question. In your view, do Army processes for planning, 
programming, budgeting, and execution sufficiently address these 
requirements for National Guard equipment?
    Answer. If confirmed, I will examine the funding of the Army 
National Guard to ensure it receives the appropriate level of resources 
as a part of the Army's Total Force.
    Question. If confirmed, how would you ensure that these equipment 
needs of the Army National Guard are fully considered and resourced 
through the Army budget process? In your view, what is the appropriate 
role for the Chief of the National Guard Bureau in this regard?
    Answer. If confirmed, I will work closely with the Chief, National 
Guard Bureau to ensure that Army National Guard requirements and needs 
are considered, and appropriately synchronized with Army priorities and 
resourcing strategy.
    Question. What is your understanding and assessment of the effect, 
if any, of increasing the grade of the Chief of the National Guard 
Bureau to General (O-10)?
    Answer. The increase in grade reflects the importance of the 
National Guard to our Total Force and the significant responsibilities 
of the Chief of the National Guard Bureau. I have had the opportunity 
to work closely with the Chief of the National Guard Bureau on several 
issues as Commander of Multi-National Force-Iraq and U.S. Joint Forces 
Command.
    Question. In your opinion, should the Chief of the National Guard 
Bureau be a member of the Joint Chiefs of Staff?
    Answer. I am aware of this topic, but have not had any discussions 
regarding the Chief of the National Guard Bureau becoming a member of 
the Joint Chiefs of Staff. If confirmed, I will consider this important 
question further before forming my opinion.
    Question. What is your understanding and assessment of the role and 
authority of the Director of the Army National Guard, and, in your 
view, how does this compare with the role and authority of the Chief of 
the Army Reserve?
    Answer. The Director of the Army National Guard leads the Army 
National Guard Directorate of the National Guard Bureau, and assists 
the Chief, National Guard Bureau in carrying out the functions of the 
National Guard Bureau as they relate to the Army. The Director, Army 
National Guard serves as a member of the Army Staff and as a Reserve 
component chief in similar fashion to the Chief, Army Reserve.
    Question. In your view, should the Director of the Army National 
Guard be ``dual hatted'' as a Deputy Chief of Staff of the Army?
    Answer. I have not had the opportunity to fully consider this issue 
before, but if confirmed, will be better able to understand the duties 
and responsibilities of Director, Army National Guard as they relate to 
the Chief of Staff of the Army and the Army Staff.
    Given my understanding of the National Guard Bureau, however, the 
Chief, National Guard Bureau is the principal advisor to the Chief of 
Staff of the Army on National Guard matters, while the Director, Army 
National Guard assists the Chief of National Guard Bureau in carrying 
out the functions of the Bureau as they relate to the Army.
    If confirmed, I will continue to study the duties and 
responsibilities of Director, Army National Guard as they relate to the 
Chief of Staff of the Army and the Army Staff and make recommendations 
as appropriate.
    Question. In your view, should there be a requirement that the 
position of Commander, U.S. Northern Command (NORTHCOM) or Commander, 
U.S. Army North, the Army component commander, be filled only by a 
National Guard officer? Please explain.
    Answer. No. We want to sustain flexibility to ensure we have the 
most experienced and capable leaders. In my opinion, we should not be 
restricted to Reserve component or Active Duty component when selecting 
a commander to fill either of these positions. Recognizing the roles of 
NORTHCOM and Army North, however, it is logical to conclude that Army 
National Guard leaders should be considered for senior command and 
staff positions.

           GLOBAL POSITIONING SYSTEM RECEIVERS AND EQUIPMENT

    Question. As a major user of global positioning system (GPS) 
receivers, what is your understanding and assessment of the Army's 
participation, if any, in testing GPS receivers and equipment that use 
GPS signals with respect to potential interference or disruptions 
associated with commercial broadband services?
    Answer. The Army is a major acquirer of GPS systems both stand 
alone or embedded in other weapon systems that require position 
location information. I understand that the Army has tested these 
systems to verify their requirements, including their GPS 
functionality. The Army has been a partner with the Air Force, 
developers of the GPS constellation, since the inception of the 
program, and has participated extensively in development and 
operational testing throughout the life of the program.
    Question. Has all Army equipment utilizing GPS signals been tested?
    Answer. The Army has tested all GPS equipment it provides to the 
field either through independent development tests, operational tests, 
in partnership with other services and in participation in the prime 
contractor test efforts. The Army will continue to conduct testing in 
this manner to address continuing equipment developments, the 
introduction of new GPS features, and evolutionary changes to the GPS 
system.
    Question. Is there specific equipment, if any, that has not been 
tested for which interference or disruption is not known?
    Answer. I am not aware of any. The GPS program continues to evolve, 
as it must, to address changes in technology and to address any 
disruptions or attempts by adversaries to deny us the use of GPS. The 
Army will participate in the testing of new GPS equipment and waveform 
(signaling) changes to verify systems performance. New GPS security, 
space segment, and waveform changes meant to improve GPS performance 
will be tested as those program enhancements mature and proceed through 
their development cycles.
    Question. In your view, has the time allotted for testing been 
adequate?
    Answer. Yes, based on my current understanding, the time allotted 
to testing has been adequate.
    Question. What are the preliminary results, if any, from testing?
    Answer. All equipment testing is meant to verify performance of the 
systems against the requirements levied upon them prior to providing 
them to the field. Testing has been successful and any issues resulting 
from tests are addressed and any fixes are verified and incorporated 
via software or hardware changes as necessary.

                            WOMEN IN COMBAT

    Question. What is your view of the appropriate combat role for 
female soldiers on the modern battlefield?
    Answer. Because of the distributive nature of the battlefield in 
Iraq and Afghanistan, women's exposure to combat conditions has changed 
significantly. We must conduct constant reviews and assess how women 
can continue to improve our capabilities and flexibility and maximize 
their contributions to the Army.
    Female soldiers have been and continue to be an integral part of 
our Army team, contributing to its success and overall readiness, as 
they perform exceptionally well in specialties and positions open to 
them and remain critical to the success of ongoing missions in Iraq and 
Afghanistan.
    Question. In your view, should the current Army policy prohibiting 
the assignment of women to ground combat units be revised or clarified 
in any way to reflect changing roles for female soldiers and the 
changing nature of warfare?
    Answer. I believe we must constantly assess the role of women, 
especially considering the changing nature of war and our experiences 
over the last 10 years. A review of current policies and regulations is 
ongoing in concert with the Office of the Under Secretary of Defense 
(Personnel and Readiness), as directed in the Women in the Service 
Restriction (WISR) under section 535, National Defense Authorization 
Act (NDAA) for Fiscal Year 2011. If any changes are determined to be 
appropriate, required notice would be provided to Congress prior to 
implementing any changes to current policy.
    Question. Do you believe that it is appropriate for female soldiers 
to serve in positions in which they may be exposed to combat?
    Answer. Women in the Army continue to make tremendous contributions 
as well as demonstrate their selfless-service and sacrifices in roles 
and responsibilities critical to the safety and security of our Nation 
and to the readiness of the Army. The contemporary operating 
environment finds our female soldiers serving in positions that have 
exposed them to combat and they have proven that they are up to any 
task, regardless of their occupational specialty, when freedom is 
threatened and when their country calls.

                                SUICIDES

    Question. The committee continues to be concerned about the 
continuing increase in soldier suicides, especially the increase in 
Reserve component suicides. In June 2010, the Army released a report on 
Health Promotion, Risk Reduction, and Suicide Prevention that analyzed 
the causes of suicides in the Army and in Chapter III (``The Lost Art 
of Leadership in Garrison'') reported disturbing trends in drug use, 
disciplinary offenses, high risk behaviors, and inadequate responses by 
Army leaders.
    In your view, what is the cause of this apparent increase in the 
number of suicides of Reserve component members?
    Answer. I am concerned about suicide as an issue for the Total 
Army, including both the Active component and the Reserve component. 
The Army is focusing attention on the differences between our Active 
component and Reserve component suicides because there may be unique 
variables at play for Reserve component soldiers not serving on Active 
Duty, including: economic and civilian job-related stress; military 
service factors; and access to medical and behavioral health care. The 
economic recession has added additional stress to those Reserve 
component soldiers who find it increasingly difficult to find or 
sustain employment whether as a result of a military deployment or 
merely the prospect of one. Within their military units, Reserve 
component soldiers are often only involved with their chain of command 
during battle assemblies and have fewer opportunities to form ``buddy 
teams'' of peers. In terms of access to medical and behavioral health 
care, Reserve component soldiers generally do not have the same access 
to base and family support services, such Army Substance Abuse Program, 
Family Life Chaplains, and other Services that Active Duty soldiers 
utilize.
    Question. What is your assessment of the Army's response to the 
continuing increase in suicide rates?
    Answer. Leaders across the Army have taken aggressive steps to 
improve the health of the force, decrease high risk behavior, and stem 
the increasing rate of suicides in our formations. This is a very 
complex issue and it is going to take fully engaged leadership to 
modify programs and policies, fully understand the causes for this 
increase, identify the indicators, and implement appropriate 
intervention measures. After nearly a decade of war, we are working to 
keep pace with the expanding needs of our strained Army, and 
continuously identify and address the gaps that exist in our policies, 
programs, and services. The Army Health Promotion, Risk Reduction and 
Suicide Prevention Report 2010, along with the DOD Task Force on the 
Prevention of Suicide by Members of the Armed Forces and other 
strategic reports, serve as the foundation for our systemic effort to 
improve.
    Question. What is the Army doing to address the disciplinary and 
other issues raised in the report on Health Promotion, Risk Reduction, 
and Suicide Prevention?
    Answer. The Health Promotion, Risk Reduction, and Suicide 
Prevention (HP/RR/SP) report was a focused 15-month effort by a 
multidisciplinary team (leader/medical/personnel/law enforcement) to 
better understand the increasing rate of suicides in the force. This 
candid report informed and educated Army leaders on the importance of 
identifying and reducing high risk behavior related to suicide and 
accidental death, and promoting help-seeking behavior. Important issues 
raised in the report include: gaps in the current policies, processes 
and programs necessary to mitigate high risk behavior; an erosion of 
adherence to existing Army policies and standards; an increase in 
indicators of high risk behavior including illicit drug use other 
crimes, suicide attempts, and an increased operational tempo.
    To address gaps in the current policies, processes and programs 
necessary to mitigate high risk behavior, the Army has taken actions 
such as establishing policies that limit the duration of prescriptions 
for controlled substances to 6 months, which addresses the issue of 
abuse of pharmaceutical drugs.
    To address the erosion of adherence to existing Army policies and 
standards, the Army has established policies emphasizing the Army's 
current policies and systems for assessment, detection, and 
intervention of high risk behavior. This has already increased our 
compliance and utilization rates across numerous proven policies and 
processes.
    To address the complex stressors associated with an increased 
operational tempo, the Army has increased the number of chaplains, 
behavioral health providers, substance abuse counselors and military 
family life consultants. These care providers work with soldiers and 
their families during high-stress periods, both prior to deployment/
mobilization and during reintegration upon return from deployment.
    Question. What is your assessment of the status of the Army's 
Resiliency Program in ensuring the readiness and well being of the 
Total Force?
    Answer. The Army's Resiliency Program, Comprehensive Soldier 
Fitness, initiated in 2008, has been fully deployed beginning in fiscal 
year 2009. This is a long-term strategy that better prepares the Army 
community--including all soldiers, family members, and Department of 
the Army civilian workforce--to not only survive, but also thrive at a 
cognitive and behavioral level in the face of protracted warfare and 
the everyday challenges of Army life that are common in the 21st 
century. It has made developing psychological strength as much a part 
of Army culture as becoming physically fit and technically proficient.
    The program, based on 30-plus years of scientific study and 
results, uses individual assessments, virtual training, classroom 
training, and embedded resilience experts to provide the critical 
skills our soldiers, family members, and Army civilians need. There is 
now solid scientific evidence that a well-implemented resilience 
program increases good coping, adaptability, and decrease catastrophic 
thinking among soldiers, especially young soldiers. A robust program 
evaluation is continuing to ensure we continue to provide the best 
education and training for our force.
    Question. The National Institute of Mental Health (NIMH) is 
currently performing a 5-year, $50 million study on suicides in the 
Army (referred to as the Study to Assess Risk and Resilience in 
Servicemembers) (STARRS). According to NIMH, preliminary data reveal 
several potential predictors for suicide as well as a three-fold 
increase in suicide rates among women who have deployed.
    In light of this information, and based on your own experience as 
commander, what actions will you take, if confirmed, to enhance the 
Army's suicide prevention program?
    Answer. It is important to recognize that the problem of the 
increasing suicide rate is complex. The findings from Army STARRS are 
being used to inform the Force, raise awareness, and promote help-
seeking behavior. The Army STARRS team will continue to work with Army 
leadership to analyze and integrate context into the research that is 
being conducted. This is an enduring problem that requires enduring 
solutions. If confirmed, I will sustain the extensive leader focus on 
this issue and its challenges.

                      SUPPORT FOR WOUNDED SOLDIERS

    Question. Wounded soldiers from Operations Enduring Freedom, Iraqi 
Freedom, and New Dawn deserve the highest priority from the Army for 
support services, healing and recuperation, rehabilitation, evaluation 
for return to duty, successful transition from Active Duty, if 
required, and continuing support beyond retirement or discharge. Yet, 
as the revelations at Fort Stewart in 2003 and Walter Reed in 2007 
revealed, the Army was not prepared to meet the needs of returning 
wounded soldiers.
    In your view, what were the most critical shortcomings in warrior 
care since 2001?
    Answer. The quality of military medical care has and continues to 
be superb. I have seen first-hand how innovations such as the combat 
application tourniquet and combat gauze have saved hundreds of lives on 
the battlefield, allowing severely wounded soldiers to avoid bleeding 
to death before additional medical care is able to get to them. At the 
outset of Operations Enduring Freedom and Iraqi Freedom, the Army's 
infrastructure in garrison was lacking in the area of housing and 
managing outpatient care for returning wounded, ill, and injured 
soldiers. Additionally, we identified shortcomings in traumatic brain 
injury, post-traumatic stress, behavioral health, and pain management. 
Since 2001, we have invested significant research and resources to 
learn how to better care for these injuries and as a result have 
developed formal programs to improve warrior care. If confirmed, I will 
work with Secretary McHugh to ensure we continue to assess and enable 
procedures, processes, and care for our soldiers.
    Question. What is your assessment of the Army's response?
    Answer. With the support of Congress, the Army has improved in the 
housing of wounded and injured soldiers, developed well-resourced 
Wounded Warrior Transition Units (WTU) and more effectively centralized 
our Army programs under the Warrior Transition Command. If confirmed, I 
will work with Secretary McHugh to assess and monitor procedures, 
processes, and care of our soldiers.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from Active Service?
    Answer. In 2004, the Army created the Wounded Warrior program to 
provide follow on assistance to wounded personnel who separated from 
service. Under the program, the Army maintains contact with soldiers to 
provide a continuum of care and support.
    Question. How effective, in your view, are those programs?
    Answer. With more than 190 advocates stationed around the country 
in Department of Veteran Affairs medical facilities, at WTUs, and 
everywhere severely injured Army veterans reside, the Army Wounded 
Warrior (AW2) Program has continued to progress in support of our 
wounded warriors. These advocates enhance the Veteran Affairs Federal 
Recovery Care Coordinators to ensure seamless support for our most 
seriously wounded. As part of the Warrior Transition Command, AW2 is 
now positioned to ease the transition from soldier to veteran as part 
of a continuum of care and support that stretches from the battlefield 
to where they reside today. We still have some work to ensure seamless 
medical care as we transition our wounded warriors to the VA. We will 
continue to assess and make adjustments.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. If confirmed, I will continuously assess the efficiency and 
appropriateness of the Army's support for wounded personnel. I would 
implement strategies and seek resources as needed to ensure that the 
Army meets the needs of wounded soldiers.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the Army's disability evaluation system.
    What is your understanding and assessment of the Army's disability 
evaluation system?
    Answer. The Disability Evaluation System (DES) is better than it 
was 4 years ago; legislative changes and the new Integrated Disability 
Evaluation System has made the system less adversarial; provided 
greater consistency between military and VA ratings; reduced the time 
it takes to start receiving VA benefits after separation. However, the 
DES remains complex, disjointed, and hard to understand. We must do 
better to achieve a sustainable system that is understood and better 
serves our wounded warriors. I also believe the rehabilitation and 
disability evaluation systems deserve a broader national and 
interagency discussion which focuses on the holistc care of our wounded 
warriors as they transition from the Army to the VA.
    Question. If confirmed, what actions, if any, would you direct to 
address needed changes in this system, including the Army's growing 
population of non-deployable injured, ill, or wounded soldiers?
    Answer. If confirmed, I will work with the other Services, DOD, the 
Department of Veterans Affairs to bring real reform to the process and 
get the Services out of the disability evaluation business.

          ARMY WARRIOR CARE AND TRANSITION PROGRAM (OTSG, G1)

    Question. In February, the Pittburgh Tribune-Review published a 
series of articles that alleged that the Army's 38 WTUs had become ``a 
dumping ground for criminals, malingerers, and dope addicts'' creating 
an imbalance of soldiers who need complex medical case management and 
soldiers that commanders do not want to take on combat deployment.
    Does the Army have adequate guidelines to ensure that only those 
soldiers with qualifying medical needs are assigned to WTUs?
    Answer. I am concerned that WTUs maintain the focus on complex 
medical care management and support those soldiers with a genuine need. 
If confirmed, I will continuously assess guidelines to ensure that only 
soldiers with qualifying needs are assigned to the WTUs.
    Question. In your view, are the WTUs serving the purpose for which 
they were created?
    Answer. Over the past 4 years, the Warrior Care and Transition 
Program has significantly improved the quality of care and support 
soldiers and families have received.
    Question. If confirmed, do you plan to make any changes to the 
criteria for assignment to a WTU?
    Answer. While I do not have plans to change the criteria for 
assignment to WTUs at this time, this is an issue I will thoroughly 
assess, if confirmed. Also, I will continually assess the effectiveness 
of the Warrior Care and Transition Program to ensure it provides the 
level of care and support our wounded warriors deserve.
    Question. Staffing of WTUs has been a major issue, especially at 
installations experiencing surges of redeploying troops.
    In your view, are the WTUs staffed with sufficient numbers of 
qualified personnel?
    Answer. While not fully informed concerning existing staffing 
levels in WTUs. I know that the Army Staff led by the Director of Force 
Management, in coordination with key leaders from the U.S. Army Medical 
Command and the Warrior Transition Command, reviews the structure and 
staffing of the WTUs on a quarterly basis. I will, if confirmed, learn 
more about this area and ensure that the WTUs are appropriately 
resourced to support the soldiers under their care.
    implementation of the repeal of ``don't ask don't tell'' policy
    Question. What is your assessment of the Army's readiness and 
capability to implement the repeal of the ``Don't Ask Don't Tell'' 
(DADT) policy?
    Answer. Per the Chief of Staff, Army memorandum for Director, Joint 
Staff, subject: Assessment of Preparedness for Implementation of the 
Repeal of Don't Ask, Don't Tell, dated July 6, 2011: Based on both 
objective and subjective criteria, it is the CSA's judgment that the 
Army is prepared for implementation of the repeal of Don't Ask, Don't 
Tell consistent with the standards of military readiness, military 
effectiveness, unit cohesion, and the recruiting and retention of the 
Armed Forces. I concur in this assessment. Policies have been reviewed 
and training conducted to prepare for repeal within 60 days after 
certification.
    Question. What in your view are the major challenges, if any, that 
could confront the Army in implementing the repeal of DADT? If 
confirmed, what actions, if any, would you propose taking to deal with 
these challenges?
    Answer. The most important challenge has been educating our 
soldiers who are in combat situations with a minimum of disruption and 
risk and we have already successfully trained over 92 percent of the 
soldiers currently in theater with expected completion by mid-August. 
Although we have done some training with currently deployed units, we 
have made it our priority to train units prior to deploying and upon 
redeployment, and have allowed deployed units the maximum time to 
complete training. We will follow up with deployed units to ensure that 
all soldiers receive the required training upon their return from 
deployment.
    Question. What measures has the Army taken to focus training on 
combat units and other deployed units and ensure that repeal of the 
current policy does not adversely affect combat operations?
    Answer. The Army is using a chain teach methodology, where each 
commander is responsible for educating his/her subordinates and they in 
turn train their soldiers. Commanders and leaders are carefully 
managing deployed units' training to minimize impact on the mission. 
The Army continues to make every effort to train units prior to 
deployment.
    Question. If confirmed, what conditions or circumstances would you 
expect to be achieved, if any, before recommending that the Chairman of 
the Joint Chiefs certify that DADT can be repealed without adversely 
affecting the Army?
    Answer. If confirmed, I would base my recommendation on the input I 
receive from commanders and leaders, various assessments on chain 
teaching and propensity to serve consistent with the requirements 
established by Congress and the DOD leadership. The Army is completing 
training according to Army guidance.

                      ARMY ROLE IN THE JOINT FORCE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the role of the Army as a part of 
the joint force.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I generally concur with General Dempsey that the Army best 
contributes to improved joint military capabilities while preserving 
its service unique capabilities and culture by providing forces for 
prompt and sustained combat operations on land and making permanent the 
advantages gained by the joint forces.
    I would add, however, that I will continue to look closely at what 
capabilities the Joint Force and Nation require of its Army. We have 
learned to fight well as a Joint Force over the past decade and to 
leverage our sister service strengths and unique capabilities. If 
confirmed, one of my charters will be to ensure the Army continues to 
look outwardly at its role as a member of the Joint Force.

                           ACQUISITION ISSUES

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the poor performance and 
challenges of major defense acquisition programs and the Army's efforts 
with its capability portfolio review process.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I generally concur with General Dempsey's answers to the 
acquisition issues raised in the advance policy questions. The Army 
must have carefully refined contract requirements, a sound program 
strategy, and stable funding to be successful in fielding major weapons 
systems and any other large acquisition programs. We also need to take 
a hard look at our acquisition process overall in an effort to shorten 
the delivery time, reduce costs, and improve our record of delivering 
the capability we require. Building a degree of flexibility to react to 
emerging requirements during production may be one area to consider but 
I would need to study this issue further before I make any specific 
recommendations for change.
    I believe the Army is a learning organization and it continues to 
look for ways to improve itself in the acquisition arena, through both 
internally directed reviews like the Decker-Wagner study commissioned 
by the Secretary of the Army and external reviews like the Comptroller 
General's assessment referenced in the acquisition questions. As 
General Demspey pointed out, we are already making progress with future 
programs and I am confident in our ability to continue to improve in 
our future acquisitions.
    If I am confirmed, I look forward to reviewing the results of these 
assessments and I pledge to work diligently with the Secretary of the 
Army and the Army leadership, along with the Office of the Secretary of 
Defense and Congress, to ensure a unified effort toward acquisition 
effectiveness and efficiency that meets the capability needs of our 
force.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. The Department of the Army has already begun taking steps 
to address these concerns. There is a renewed emphasis on collaboration 
between the requirements and acquisition communities in the development 
of new programs. Last year, Secretary McHugh commissioned a thorough 
review of the Army's acquisition process led by Hon. Gil Decker and Gen 
(Ret.) Lou Wagner that provides a blueprint for improvements to the 
acquisition process. I understand the Army is now studying these 
recommendations and developing a plan to implement those that help our 
process. As a whole, the Department must continue to build on these 
efforts to avoid unnecessary cost and delay in our programs.

                           ARMY MODERNIZATION

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Army modernization efforts over 
the last decade and the findings of a recent modernization study done 
for the Secretary of the Army by former Assistant Secretary of the Army 
Gilbert Decker and retired Army General Louis Wagner.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey's assessments of the Army's 
modernization efforts over the last decade. We have had success when it 
comes to equipping our soldiers, but we have also learned some valuable 
lessons including the importance of carefully and rigorously reviewing 
programs before we initiate them. If I am confirmed, I pledge that I 
will study the Army's acquisition process, and the results of the 
recent reviews of the process, and work closely with Secretary McHugh 
to identify areas where we can improve our modernization efforts and 
the acquisition process. I will definitely look hard at our capability 
as an Army to meet all potential threats and to operate in the variety 
of environments we are sure to find ourselves.
    I recognize that all of my decisions and recommendations with 
respect to vision, structure, force mix, and modernization will be made 
against a backdrop fiscal constraint. However, I also agree with 
General Dempsey in that every decision and recommendation for trade-
offs must be made only after considering and consciously acknowledging 
an acceptable level of risk.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. I recognize that a stable modernization strategy and 
program is an important component to both a balanced Army and to 
exercise good stewardship of resources entrusted to the Services. If 
confirmed, I will work closely with Secretary McHugh on how to achieve 
this.
    Question. What is your understanding and assessment of the Army's 
current modernization investment strategy?
    Answer. While it is true that several of our major modernization 
efforts over the past decade have been unsuccessful, I would submit 
that the American soldier today is the best equipped and enabled 
soldier this country has ever fielded. Successes such as the Stryker 
vehicle, world class body armor, soldier night vision equipment, 
soldier weapons, Precision fire systems such as Excalibur and HIMARS, 
and vehicles such as the Family of Medium Trucks all suggest to me that 
the Army has had some tremendous success in modernization.
    I believe the Army has learned and continues to learn some 
important and valuable lessons in its processes and mindset to more 
carefully and rigorously review programs both before we initiate them 
and while they are in progress. We will have to do better as we move 
forward. This will be an area I will assess more deeply if I am 
confirmed as Chief of Staff and will periodically give this committee 
my frank assessments.
    Question. Do you believe that this strategy is affordable and 
sustainable?
    Answer. If confirmed, I plan to closely examine this strategy to 
ensure it is affordable and sustainable.

                      ARMY WEAPON SYSTEM PROGRAMS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on several specific major Army 
research, development, and acquisition programs.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. If confirmed, I will ensure to monitor the progress and 
validity of each of these programs with respect to our current and 
future capability requirements.

     1.  Ground Combat Vehicle (GCV). In the development of the Ground 
Combat vehicle--the replacement for the Bradley Infantry Fighting 
vehicle--the Army is fully committed to the ``Big Four'' imperatives: 
Soldier protection; soldier capacity (squad plus crew); the capability 
to operate across the Full Spectrum of operations; and Timing (7 years 
to the first production vehicle from contract award). The Ground Combat 
Vehicle will be the first vehicle that will be designed from the ground 
up to operate in an Improvised Explosive Device (IED) environment. 
Modular armor will allow commanders the option to add or remove armor 
based on the current threat environment. The Ground Combat Vehicle will 
be designed with the capacity for Space, Weight, and Power growth to 
incorporate future technologies as they mature. The Army is using an 
incremental strategy for the Ground Combat Vehicle with the first 
increment being an Infantry Fighting Vehicle. The Army is currently 
reviewing proposals from vendors for Technology Development contracts.
     2.  Warfighter Information Network-Tactical (WIN-T). I believe 
that the Warfighter Information Network-Tactical is one of the Army's 
most important programs. It provides the broadband backbone 
communications for the tactical Army. Warfighter Information Network-
Tactical Increment 1 (formerly Joint Network Node) began fielding in 
2004 to provide a satellite based Internet Protocol network down to 
battalion level. Warfighter Information Network-Tactical Increment 2 
begins fielding in fiscal year 2012 to provide an initial On the Move 
capability, extending down to company level. Warfighter Information 
Network-Tactical Increment 3 will provide improved capabilities, 
including higher throughput, three to four times more bandwidth 
efficiency, and an aerial transmission layer, to all 126 brigades/
division headquarters with an on-the-move requirement.
     3.  E-IBCT Network Integration Kit (NIK). The E-IBCT investment 
provides the infrastructure that will allow the Army to grow the 
tactical network capability, and an opportunity for both large and 
small companies to support the Army's tactical network strategy. The 
NIK is a necessary bridge solution that allows the Army to continue 
evaluation and development of incorporated network technologies.
     4.  Joint Tactical Radio System (JTRS) including the Ground Mobile 
Radio (GMR) and Handheld, Manpack, and Small Form Fit (HMS) radios. 
Joint Tactical Radio System is the Services' future deployable, mobile 
communications family of radios. They provide Army forces dynamic, 
scalable, on-the-move network architecture, connecting the soldier to 
the network. Fiscal year 2012 procurement funding supports fielding of 
Joint Tactical Radio System capability to 8 Infantry Brigade Combat 
Teams to meet fiscal years 2013/2014 network requirements. The Ground 
Mobile Radio is the primary vehicular radio capability using the 
Wideband Networking Waveform and Soldier Radio Waveform to meet 
tactical networking requirements. The Man Pack and Rifleman Radio are 
the primary Joint Tactical Radio System capability for battalion and 
below tactical operations. The man pack supports the Soldier Radio 
Waveform and interoperates with legacy waveforms (Single Channel Ground 
and Airborne Radio Systems, Ultra High Frequency Satellite 
Communications). Rifleman Radio primarily serves the dismounted 
formation and utilizes the Soldier Radio Waveform to provide voice and 
individual location information from the dismounted soldier to the 
leader. The combination of the three radios helps the Army to push the 
network to the individual soldier.
     5.  Stryker combat vehicle, including the Double-V Hull 
initiative, procurement of more flat-bottom vehicles, and the Stryker 
mobile gun variant. The current Stryker vehicle has exceeded its Space, 
Weight and Power and Cooling (SWaP-C) limits due to add-on applique 
(armor and devices) required for ongoing combat operations. In the near 
term, it is imperative to increase crew protection with the Double-V 
Hull (DVH) Stryker. In the mid-term, Stryker modernization will improve 
protection and mobility by recouping SWaP-C, enabling future growth and 
allowing integration of the emerging network for all Stryker variants. 
Fleet-wide modernization for all variants upgrades protection, counter-
IED, drive train, suspension, electrical power generation and 
management, and digital communications and network integration. Double-
V Hull: Stryker Double-V Hull (DVH) is on track for June 2011 fielding. 
The initial DVH test results are positive, indicating the vehicle will 
be ready for fielding as scheduled. Non-Double V Hull and NBCRV: The 
Army will procure 168 Stryker NBCRVs in fiscal years 2012 and 2013 for 
a total quantity of 284 (an ARFORGEN rotation quantity). These vehicles 
are in normal Hull configuration. The Stryker NBCRV provides a unique 
capability to the Joint Force including a critical mission of Homeland 
defense, for which DVH protection is a lesser consideration. Stryker 
Mobile Gun System (MGS): The Army has procured and fielded 142 of 335 
MGS. In August 2009, the Army decided to not pursue additional MGS 
procurement at this time with forthcoming fleet-wide modernization.
     6.  Joint Light Tactical Vehicle (JLTV). The JLTV is a joint 
program with the USMC, Navy and the Army; the Australian Army is also 
currently a partner in the Technology Development phase. I believe that 
the JLTV is a vital program to fill the force protection and payload 
gaps not currently satisfied by HMMWV. It will also fill the mobility, 
transportability, and communication architecture gaps not satisfied by 
the Mine Resistant Ambush Protected (MRAP) vehicles being used in Light 
Tactical Vehicle (LTV) roles. The Army Tactical Wheeled Vehicle 
Strategy plans for the JLTV to replace about a third of the LTV fleet, 
which is roughly 46,000 vehicles. The Army is currently examining the 
attributes of the JLTV program to ensure it meets our needs for the 
future Army light tactical fleet, especially in terms of protection.
     7.  Armed Aerial Scout (AAS). I agree the Army has an enduring 
requirement for an armed aerial scout as was reaffirmed after the 
termination of the Armed Reconnaissance Helicopter (ARH) program. This 
requirement will be validated by the ongoing AAS Analysis of 
Alternatives whose findings are scheduled for release in the third 
quarter of fiscal year 2011.
     8.  M1 Abrams tank modernization. In my view, the Abrams 
modernization is necessary and will initially enable integration of the 
emerging network and provide ability to fire the next generation of 
120mm ammunition. Future modernization will provide capability 
improvements in lethality, protection, mission command, mobility, and 
reliability intended to maintain the fleet's combat overmatch and 
restore space, weight, and power margins to keep the tank relevant 
through 2050. The Abrams modernization program is funded in the fiscal 
year 2012 budget request. If confirmed, I will be able to offer an 
assessment as the program matures.
     9.  M2 Bradley infantry fighting vehicle modernization. The 
Bradley Infantry Fighting Vehicle (IFV) will be replaced by the Ground 
Combat Vehicle beginning in 2018. Bradley Non-Infantry Fighting Vehicle 
(Cavalry, Engineer and Fire Support variants) modernization will 
address recoupment of space, weight, and power to provide platform 
growth and enable improvements in protection, mobility, and ability to 
integrate the emerging network.
    10.  Logistics Modernization Program (LMP). Logistics Modernization 
Program (LMP). I understand that LMP is the Enterprise Resource 
Planning (ERP) system used by the Army Materiel Command for national-
level (wholesale) logistics, including the operation of our depots and 
arsenals. LMP has 25,000 users and completed its final deployment in 
October 2010, making it the first fully-deployed Army ERP. Based on 
commercial off-the-shelf SAP software technology, LMP provides the Army 
with an integrated end-to-end supply chain solution at the national 
level that improves overall synchronization of information. I concur 
with the Army's vision to achieve a seamless, end-to-end modernized 
business enterprise and to develop and implement an enterprise 
logistics architecture. To support that vision, LMP integrates with 
other Army ERPs, including the General Funds Enterprise Business System 
(GFEBS), and Global Combat Support System-Army (GCSS-Army), to provide 
a seamless enterprise-wide logistics environment spanning the factory 
to the foxhole in accordance with the Army's overall ERP Strategy.
    11.  Paladin Integrated Management Vehicle program. I understand 
that the Paladin Integrated Management (PIM) program is an effort to 
address an existing capability gap in the self-propelled artillery 
portfolio brought about by an aging fleet and the termination of prior 
howitzer modernization efforts (Crusader and Non-Line of Sight-Cannon 
(NLOS-C)). The PIM program provides upgrades that allow the Army to 
meet existing and future needs, and leverages the commonality with the 
Bradley Fighting Vehicle chassis and automotive components. PIM should 
provide growth potential in space, weight, and power and capacity for 
network expansion to accommodate future howitzer related needs, to 
include the addition of such force protection packages as add-on armor.
    12.  M4 Carbine Upgrades/Individual Carbine Competition. The Army 
continues to make improvements and upgrades based on operational 
lessons learned through the M4 Product Improvement Program. The Army's 
effort is designed to integrate full automatic firing, an ambidextrous 
selector switch and a more durable ``heavy'' barrel. Simultaneously, 
the Army has initiated a full and open competition to confirm the best 
possible Individual Carbine solution. Results of the competition are 
expected in fiscal year 2013.

            MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLES

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the future of the Army's large 
MRAP and MRAP-All Terrain Vehicle fleets.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I generally concur with General Dempsey that the Army 
should try to provide MRAP levels of protection to deploying forces 
worldwide commensurate with the mission assigned.

                       QUADRENNIAL DEFENSE REVIEW

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the 2010 report of the Quadrennial 
Defense Review (QDR), its guidance with regard to the sizing of 
military forces for the future, and the military departments' 
orientation on six key mission areas.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I agree with General Dempsey's assessment that the Army's 
size and structure have proven adequate to meet the demands of our 
defense strategy, although the toll on our soldiers and families has 
been high. When trying to predict future size or structure changes, we 
need to maintain some flexibility.
    It is difficult to predict what our future commitments will be and 
we need to account for our wounded warriors and nondeployables which 
will continue to increase over the next several years as we continue to 
engage in Afghanistan. Like General Dempsey, if I am confirmed, I 
pledge to work closely with the Secretary of Defense, the Secretary of 
the Army, the Chairman of the Joint Chiefs, and our combatant 
commanders to match end strength, structure, and tempo in our ARFORGEN 
rotational model to meet demands as they change.
    Question. If confirmed, what size or structure changes would you 
pursue, if any, to improve or enhance the Army's capability to meet 
these requirements?
    Answer. The nature of the strategic environment requires the Army 
to continuously assess its capabilities and force requirements. It's 
taken 10 years to achieve a size, structure, and capability that we can 
reasonably describe as balanced. We are accustomed to change, and we 
will undoubtedly need to continue to change. As we do we must seek to 
maintain a balance of capabilities that are available to meet the 
Nation's needs at a sustainable tempo.
    I concur with each of General Dempsey's assessments of the improved 
capabilities required in the six key mission areas discussed in the 
attached reference. I also agree with his assessment that the Army is 
currently capable of supporting these mission requirements, but there 
are areas where we need to restore our proficiency and improve our 
training. If confirmed, I will study the QDR further and better 
evaluate areas where additional emphasis may be needed.
    Question. The QDR report particularly emphasizes the requirement 
for improved capabilities in the following six key mission areas. For 
each, what is your assessment of the Army's current ability to provide 
capabilities to support these mission requirements?
    If confirmed, what changes, if any, would you pursue to improve the 
Army's capabilities to support:
    Defense of the United States.
    Answer. The Army is fully capable of fulfilling its responsibility 
to defend the Homeland through detection, deterrence, prevention, and 
if necessary, the defeat of external threats or aggression from both 
state and non-state actors. A specific program recently undertaken to 
enhance this ability include the fielding of the enhanced Stryker 
Nuclear Biological and Chemical Reconnaissance Vehicle. This provides 
us with a much improved technical assessment and decontamination 
capability.
    Question. Support of civil authorities at home.
    Answer. The Army is well-postured to provide support to civil 
authorities. We are organized and trained to provide responsive and 
flexible support to mitigate domestic disasters, CBRNE consequence 
management, support to civilian law enforcement agencies, counter WMD 
operations, and to counter narcotics trafficking activities. We 
continue to address the challenges associated with this mission set 
including unity of command, integration with civilian authorities, and 
the integration of title 10 and title 32 forces.
    Question. Succeed in counterinsurgency, stability, and 
counterterrorism operations.
    Answer. We are highly proficient in counterinsurgency, stability 
and counterterrorism operations. This has been the focus for the Army 
for much of the last 10 years and we have institutionalized lessons 
learned across the operating and generating force.
    Question. Build the security capacity of partner states (including 
your views, if any, on the use of general purpose forces in the 
security force assistance role).
    Answer. General Purpose Forces have a clear role in building 
sustainable capability and capacity of partner nation security forces 
and their supporting institutions. Peace time engagement is our best 
opportunity to shape the future operating environment. General Purpose 
Forces are well-suited to support these activities through Security 
Force Assistance.
    Question. Deter and defeat aggression in anti-access environments.
    Answer. The Army's ability to deter and defeat aggression in anti-
access environments as part of the joint force is adequate to meet the 
demands of the current security environment. That said, there are some 
tasks and skills to which we have not trained due to the demands of our 
ongoing conflicts. We must restore our proficiency in those tasks. We 
work with our sister Services to assess our capabilities to conduct 
entry operations as part of the joint force and watch closely the 
improved anti-access/area denial capabilities being developed by 
potential adversaries.
    Question. Prevent proliferation and counter weapons of mass 
destruction (WMD).
    Answer. The Army provides highly trained and ready forces with 
capabilities to support combatant commander requirements to counter the 
proliferation of WMD. Current capabilities include operating 
effectively within a chemical, biological, radiological, and nuclear 
environment, specialized teams to locate and neutralize WMD, and an 
operational headquarters with expertise in eliminating WMD.
    Question. Operate effectively in cyberspace.
    Answer. We are on the right glide path to support U.S. Cyber 
Command and our geographic combatant commanders to operate effectively 
in cyberspace. On 1 October 2010, the Army stood up a new three-star 
command (U.S. Army Cyber Command/2nd Army), to direct the operations 
and defense of all Army networks, and when directed, provide full-
spectrum cyberspace operations. The Army is bringing the forces of 
network operations, defense, exploitation, and attack under one 
operational level command to integrate and synchronize global 
operations for the first time.

                            MISSILE DEFENSE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on air defense missile programs and a 
recent proposal to transfer a number of Army air and missile 
development programs to the Missile Defense Agency.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I agree with General Dempsey's responses involving the 
Army's missile defense program and his understanding of the Army's 
relationship with the Missile Defense Agency. In addition to protection 
of our deployed forces, I would add defense of our Nation's national 
security interests as one of the priorities of this program.
    Yes. The Army has confirmed on many occasions that Air and Missile 
Defense is a core competency. Defense of our Nation's national security 
interest and protection of our deployed forces is the priority. The 
Army provides this protection in coordination with our sister Services 
and coalition partners.
    I concur with General Dempsey in that the Army needs to continue to 
monitor the threat and prioritize required future capabilities to 
ensure we provide effective affordable solutions in a timely manner to 
our forces.

                                 SPACE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Army support to Strategic Command 
in getting space based communications to the warfighter and the 
apparent lag in the acquisition of ground and other terminals to work 
with new satellite systems.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. Similar to General Dempsey, I am not currently in a 
position to provide an informed assessment of what needs the Army could 
address from space or what my vision for future Army space forces would 
be. I certainly appreciate, however, the importance of the Army's role 
in space and of ensuring that the Army does not fall behind or fail to 
be a complimentary contributor to the Joint Force in this domain. The 
Army depends on capabilities from space-based systems such as global 
positioning satellites, communication satellites, weather satellites, 
and intelligence collection platforms for the effective execution of 
full spectrum operations. I experienced some of the challenges the Army 
has with respect to the lag in acquiring required space technology in 
theater, but I would need to examine this issue more closely, if I am 
confirmed, before I can determine the real cause of any lag or 
recommend future action.

                     LOW-DENSITY/HIGH-DEMAND FORCES

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on low-density/high-demand forces.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey that the Army needs to use 
the Total Army Analysis (TAA) to identify the capabilities necessary, 
within resource constraints, to achieve the full spectrum of missions 
expected of the Army. This process allows us to identify requirements 
while still managing acceptable risk for all forces, in both Active and 
Reserve components. I am not aware of any necessary functional changes 
that should be made between the components at this time, but if I am 
confirmed, I will continue to evaluate this matter. I also intend to 
continue to reinforce the great interaction seen between the Active and 
Reserve components of the Army that we have seen in the past 10 years.

     MOBILIZATION AND DEMOBILIZATION OF NATIONAL GUARD AND RESERVES

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the challenges associated with the 
mobilization of Army National Guard and Reserve Forces.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I have seen firsthand throughout my career how critical our 
Reserve component soldiers are to the Total Force. With increased 
deployments in the last decade, the Army has learned a lot about 
mobilizing and demobilizing these forces, and it will continue to learn 
from our experiences and to improve our processes. I understand the 
Army is currently reviewing all of its mobilization policies to ensure 
that the systems in place are effective and responsive to meet the 
Army's needs and the needs of our Reserve component soldiers and their 
families. If confirmed, I will continue to support these efforts.
    I share General Dempsey's understandings and assessments of Reserve 
Force management policies and changes to how the Army uses the ARFORGEN 
model to build unit readiness for mobilization requirements. If I am 
confirmed, I will continue to assess the validity and effectiveness of 
this model over time and to work with Secretary McHugh to identify 
areas where changes may be needed. At present though, I am not aware of 
any required changes.

                        INDIVIDUAL READY RESERVE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on accessing the Individual Ready 
Reserve (IRR).
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey that the IRR has proven to be 
an invaluable asset to all Army components in support of contingency 
operations around the world and it is a critical source of highly-
skilled soldiers. I continue to be amazed at the incredible talent 
resident across our Total Force. I am not aware of any changes that 
need to be made to the mobilization or recall policies of our IRR. If I 
am confirmed, I will learn more about these policies before making any 
final assessment.
    In response to the recent studies showing higher rates of suicide 
among the IRR, I concur with General Dempsey's response and acknowledge 
the gravity of this particular issue. If confirmed, I will continue to 
support the Army's effort to pursue all avenues available to assure the 
well being of our Total Force.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the challenges of personnel and 
entitlement cost growth.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I agree with General Dempsey that in order to take control 
of the Army's personnel costs and entitlement spending, we need to 
strike a balance between preserving the All-Volunteer Force, 
accomplishing operational missions, and retraining an Army that is 
affordable to the Nation. I am not familiar with a requirement to 
reprogram money to cover current personnel costs.
    I also understand that the Military Personnel Army (MPA) 
appropriation was passed by Congress in April 2011; and both the MPA 
OCO and Active component base force requirements are adequate to meet 
current personnel costs.

 MEDICAL AND DENTAL READINESS OF ARMY NATIONAL GUARD AND ARMY RESERVE 
                               PERSONNEL

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on medical and dental readiness of 
Reserve component personnel.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey and believe the Army should 
develop and resource mechanisms to routinely identify, screen, and 
assess Reserve component medical readiness. I also believe that the 
health and fitness of the Reserve component is a very important issue. 
In addition to the Comprehensive Soldier Fitness Program already 
discussed by General Dempsey, the Army is also moving forward with a 
Soldier Medical Readiness Campaign Plan that seeks to improve health 
and fitness, increase soldier resilience, and reduce injury rates. If 
confirmed, I would work with the Army's Active and Reserve component 
leadership to continue these important initiatives and to develop 
policies for more effectively identifying ready and medically non-ready 
soldiers across the force.

                      ARMY SCIENCE AND TECHNOLOGY

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Army the value and management 
science and technology programs.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. As General Dempsey stated, the Army's science and 
technology investment strategy is shaped to foster invention, 
innovation, and demonstration of technologies for the current and 
future warfighter. I believe that a strong Army science and technology 
program has already provided many advanced capabilities demonstrated in 
the past 10 years of war.
    Technological innovations have resulted in the rapid development 
and deployment of lightweight and adaptable armor solutions, jammers, 
unmanned air vehicles, unmanned ground vehicles, surveillance systems, 
communications devices, and day/night vision systems. All of these 
technology enabled capabilities have significantly improved our 
warfighters' capabilities in recent operations. If I am confirmed, then 
like General Dempsey, I would use metrics that demonstrate improved 
warfighters' capabilities; improve acquisition programs; and align 
technology development to warfighters' requirements, to judge the value 
and investment level in Army science and technology programs. I do not 
currently envision any specific new science and technology areas for 
the Army to pursue, but I would welcome the opportunity to study this 
matter further.
  army laboratories and research, development, and engineering centers
    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army's commitment to and 
investment in its laboratories and research, development, and 
engineering centers.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. As General Dempsey stated, Army laboratories are science 
and technology performing organizations that play a major role in 
supporting current operations with best capabilities available and 
providing critical new capabilities for soldiers particularly in key 
strategic science and technology areas.
    I concur with General Dempsey that the Army laboratories and 
research and development centers need to maintain the resources 
required to continue initiatives and advancements that support the 
warfighters. If confirmed, I will learn more about their operations and 
support efforts to improve best practices and workforce quality 
necessary for mission accomplishments.

                    ARMY TEST AND EVALUATION EFFORTS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army's failure to meet test 
and evaluation range investment certification requirements from the DOD 
Test Resource Management Center.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I have reviewed General Dempsey's answer and concur with 
his response, that testing is a crucial capability for maintaining the 
Army's combat edge and modernizing the force. I fully recognize the 
value of testing to ensure new technologies and equipment address the 
capabilities our warfighters need. If confirmed, I will work closely 
with the Army test and evaluation community and the Office of the 
Secretary of Defense test and evaluation leadership to ensure the 
Army's test and evaluation infrastructure is adequately resourced to 
address testing requirements and maintain robust test capabilities.

                  ARMY INFORMATION TECHNOLOGY PROGRAMS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Army information technology 
management, consolidation, and efficiencies initiatives.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey's response and believe the 
Army needs to implement and enforce technical standards, make 
acquisition of commercial off-the-shelf (COTS) or near-COTS technology 
easier, and field new technology to operational forces more quickly. 
This is in line with the congressional mandate you gave us in section 
804 of the 2010 NDAA.
    The center for network integration at Fort Bliss, TX--the Army 
Evaluation Task Force (AETF) will serve as the Network's primary test 
unit with a two-fold intent, to remove the integration burden from the 
operational units and to provide an operational venue to evaluate new 
technologies and network capabilities prior to fielding to operational 
units. The new capabilities they develop should ultimately provide the 
impetus for future acquisition and equipping decisions.

                         HUMAN TERRAIN SYSTEMS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Army's plans to institutionalize 
its Human Terrain System program.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey and I understand the Army has 
institutionalized the Human Terrain System as an enduring capability 
assigned to Training and Doctrine Command and funded capability 
starting in the fiscal year 2011. I also believe there is merit to 
developing a joint capability. In September 2010, General Dempsey 
directed a Training and Doctrine Command capability-based assessment of 
all socio-cultural capabilities throughout the combatant commands and 
Services. The intent is to identify other ongoing socio-cultural 
initiatives, to determine potential synergies and best practices in 
order to develop and evolve an enduring joint capability. The results 
of this assessment have been compiled, and if confirmed, I will make 
this part of my review.

                           OPERATIONAL ENERGY

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army's operational energy 
program and its lack of quantitative metrics against which to measure 
progress.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey's response that the most 
important issue with operational energy is the amount of fuel used to 
meet our operational needs. Most of our fuel is used in generation of 
electricity. The Army has implemented, and accelerated deployment, of 
generators that use less fuel as well as microgrid systems that tie 
generators together to operate more efficiently. We are developing more 
efficient motors for helicopters and vehicles to reduce our operational 
energy footprint and, ultimately, wars are won or lost by dismounted 
soldiers, so the Army is addressing excessive soldier loads, driven in 
large part by energy and power constraints. If confirmed, I will 
continue efforts currently underway to increase our energy efficient 
capabilities in theater and emphasize energy awareness through the 
military chain of command, and across the Army, to foster a more 
energy-aware culture.
    Question. What is your understanding of the Army's progress with 
respect to testing and deploying operational energy technologies?
    Answer. As General Dempsey stated, the Army is taking advantage of 
every avenue, to include industry, to help us develop technologies that 
can reduce our operational energy footprint. Renewable energy systems 
and insulated tentage are some of the systems being piloted and tested. 
We are also evaluating technologies that will help lighten soldier 
loads and reduce the amount of batteries and fuel we must procure and 
deliver to theater. We will continue to pursue more efficient devices, 
emphasize energy conservation, and employ energy management 
capabilities that are essential to retain energy as an operational 
advantage.
    Question. What is your understanding of how the Army is taking 
advantage of its labs and research, engineering, and development 
centers to further its operational energy and security goals?
    Answer. I concur with General Dempsey's response that the Army has 
integrated the national laboratories with Department of Energy and Army 
laboratories to develop solutions to a range of operational energy, 
power, and security needs. Some of the initiatives include research to 
reduce the size and weight of components, broadening alternative energy 
sources, leveraging various emergent energy efficient technologies. 
These new technologies will increase energy efficiency and improve 
power supplies for contingency bases, forward operating bases and 
equipment carried by individual soldiers. If confirmed, I will work to 
ensure that the research conducted at Army facilities continues to 
focus on meeting the operational energy needs of the current and future 
Army and to support DOD's high priority program to increase energy 
efficiencies.

                      INVESTMENT IN INFRASTRUCTURE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on decades of under-investment in 
installation infrastructure that have led to increasing maintenance 
backlogs and substandard living and working conditions.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey's statement that since fiscal 
year 2007, with Base Realignment and Closure, Transformation, and Grow 
the Army initiatives, the Army has made significant military 
construction investments in its infrastructure. Additionally, a variety 
of public-private partnership initiatives have complemented direct Army 
investments. If confirmed, I will work with the Assistant Secretary of 
the Army, Installation, Energy and Environment, the Assistant Chief of 
Staff for Installation Management, and the Commanding General at 
Installation Management Command to assess our infrastructure 
investments.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. The proper stewardship of our facilities portfolio requires 
the Army to fully sustain current facilities, dispose of our excess 
facilities, improve the quality of our worst facilities, and build-out 
our largest and most critical shortages, all at a level adequate to 
support the mission. The Army is utilizing programs in which it 
leverages private financing to upgrade infrastructure and ensure more 
sustainable, efficient, and reliable mission support. If confirmed, I 
will evaluate the proper balance of funding, to include evaluating 
privatization opportunities and whether the Army should increase 
operation and maintenance funding for restoration and modernization and 
proper stewardship of our facilities portfolio requires the Army to 
fully sustain the current facilities, dispose of our excess facilities, 
improve the quality of our worst facilities, and build-out our largest 
and most critical shortages, all at a level adequate to support the 
mission.

             ARMY POLICIES REGARDING DRUG AND ALCOHOL ABUSE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army drug and alcohol abuse 
policies and programs.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey that Army policy directs 
commanders to initiate administrative separation for all soldiers 
involved in trafficking, distribution, possession, use, or sale of 
illegal drugs. While the policy requires initiation of separation, 
commanders have the authority to retain or separate a soldier. I concur 
with this policy as it has proven effective in allowing commanders 
necessary discretion in treating each soldier and incident on its 
merits while balancing the needs of the Army.
    Question. What is your understanding of the Army's policy with 
respect to rehabilitation and retention on Active Duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. I agree with General Dempsey. Army policy requires the 
separation authority consider a soldier drug offender's potential for 
rehabilitation and further military service allowing effective 
management of the Army's personnel and discipline needs. To effectively 
enforce this policy, soldiers who commit drug and alcohol offenses are 
required to be evaluated by a certified substance abuse counselor 
through the Army Substance Abuse Program (ASAP). The ASAP counselor's 
recommendation is considered by the commander when determining a 
soldier's potential for rehabilitation and retention. I concur with 
this policy.
    Question. Do you believe that the Army has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways?
    Answer. I have served at numerous command levels since 2001. In my 
experience, sufficient resources are devoted to the Army's 
rehabilitation policies and objectives. If confirmed, I will assess and 
closely monitor the level of resourcing for this important area.
    Question. What measures are being taken to improve the Army's 
performance in responding to problems of drug and alcohol abuse?
    Answer. The Army is very adept at analyzing itself to determine a 
better way ahead. The Army's policy is a comprehensive approach 
bringing together the skills and experience of commanders, law 
enforcement, and the medical community for drug and alcohol abuse 
incidents. The Army continues working on improving systems for 
detecting drug and alcohol abuse as well as on improving intervention 
systems so that we can help our soldiers who selflessly sacrifice for 
our Nation. One method through which the Army builds resiliency in the 
force is through the continually expanding Comprehensive Soldier 
Fitness Program. By encouraging a more resilient force and through 
awareness of available confidential programs, the Army's goal is to 
promote help seeking behavior by soldiers.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on significant shortages in 
critically needed medical personnel in both the Army's Active and 
Reserve components.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    The Army continues to face significant shortages in critically 
needed medical personnel in both Active and Reserve components.
    What is your understanding of the most significant personnel 
challenges in recruiting and retaining health professionals in the 
Army?
    Answer. I concur with General Dempsey, there continues to be a 
national shortage of medical professionals that challenges the Army's 
efforts to recruit and retain health care professionals. We are 
concerned that escalating need in the civilian sector will impact the 
demand for these critically short professionals. To take care of our 
soldiers, the Army must continue evaluating initiatives and programs to 
attract and retain the most skilled and talented health care providers.
    Question. If confirmed, would you undertake a comprehensive review 
of the medical support requirements for the Army, incorporating all new 
requirements for 2011 and beyond?
    Answer. Like General Dempsey stated, I also believe it is important 
to review medical support requirements on a regular, recurring basis. 
If confirmed, this review will allow me to assess whether the Army is 
meeting its medical support requirements and, if not, determine where 
improvements can be implemented to better serve our soldiers.
    Question. If confirmed, what policies or legislative initiatives, 
if any, are necessary in order to ensure that the Army can continue to 
fulfill ongoing medical support requirements?
    Answer. I do not believe additional legislative authorities are 
needed to ensure the Army fulfills medical support requirements. Like 
General Dempsey, the policy initiatives currently underway and the 
changes implemented by the National Defense Authorization Act for 
Fiscal Year 2011 at this time, allow the Army to serve the needs of its 
soldiers. If confirmed, this will be an area I closely monitor. If any 
additional authorities are identified as necessary to maintain this 
goal, I will work closely with the administration and Congress to 
address the needs.

                      FOREIGN LANGUAGE PROFICIENCY

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on foreign language policy, doctrine, 
and building capabilities for both military and civilian personnel.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    A Foreign Language Transformation Roadmap announced by DOD in March 
2005, directed a series of actions aimed at transforming the 
Department's foreign language capabilities to include revision of 
policy and doctrine, building a capabilities based requirements 
process, and enhancing foreign language capability for both military 
and civilian personnel.
    What is your assessment of the progress the Army has made in 
increasing its foreign language capabilities in operations in Iraq and 
Afghanistan?
    Answer. I concur with General Dempsey that the Army has increased 
in foreign language capabilities in support of OIF/OEF. The Army 
revolutionized its recruiting processes to enlist native and heritage 
speakers into vital interpreter/translator positions. Overall, these 
initiatives have provided enhanced capabilities for counterinsurgency 
operations and building partner capacity overseas.
    Like General Dempsey, I also believe a high priority for DOD should 
be the continued support of the Defense Language Institute Foreign 
Language Center, which provides Culturally Based Language Training to 
all Services and DOD components.

           PROTECTION OF U.S. FORCES AGAINST INTERNAL THREATS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on a DOD review of the attack at Fort 
Hood concluding that the Department was poorly prepared to defend 
against internal threats, including radicalization of military 
personnel.
    Answer. I concur with General Dempsey that the lessons learned are 
invaluable to the Army as we strive to improve the Army Protection 
Program for individuals and units against emerging threats. If 
confirmed, and as General Dempsey also stated, I will ensure that we 
continue to integrate and synchronize the many Army Protection Programs 
that protect our soldiers, family members, and Department of the Army 
civilians by ensuring that commanders and leaders have the information 
and tools needed to address the ever changing threat environment.

                          RELIGIOUS GUIDELINES

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on a DOD review of the attack at Fort 
Hood observation that ``DOD policy regarding religious accommodation 
lacks the clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization'' and recommended that the policy be 
updated.
    Answer. I concur with General Dempsey that there are established 
policies for religious accommodation in wear and appearance of Army 
uniforms and insignia and because the Army is a diverse, professional 
force, committed to treating all soldiers with dignity and respect, 
that our policies must be clear and provide appropriate guidance to 
both soldiers and commanders. Like General Dempsey, I also believe that 
current Army policies provide commanders with adequate flexibility to 
balance accommodation for religious beliefs and maintain good order and 
discipline. To this end, if confirmed, I will assess the current policy 
and determine if further changes are necessary.

                             FAMILY SUPPORT

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army Family Action Plan and 
its success in identifying and promoting quality of life issues for 
Army families.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey's statement that the most 
pressing family readiness issues include sustaining the Army Family 
Covenant and improving communication and awareness of the extensive 
range of available support programs and services the Army has to 
improve soldier and family quality of life. The Army Family Action 
Plan, Survey of Army families, and other studies revealed that soldiers 
and families may not be aware of the myriad of available support 
services.
    To address this concern, the Army is transforming Army Community 
Service (ACS) to help connect soldiers and families to the right 
service at the right time. The Army has begun piloting ACS 
transformation and anticipates completion by October 2011. I also will 
endeavor to ensure that Army family programs reach out to all soldiers 
and their families, regardless of component, geographic location or 
deployment status. I will work to ensure that family program platforms 
and delivery systems keep pace with a mobile Army and utilize 
technological advances and social networking so services are available 
to the soldiers and families who need them.
    I am highly interested in the results of the ACS pilot and if 
confirmed, I will continue to strengthen our support services and 
ensure our programs efficiently meet the needs of the soldiers and 
families who use them.

                      MENTAL HEALTH ADVISORY TEAMS

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on the Army's Mental Health Advisory 
Team (MHAT) studies in Iraq and Afghanistan and their value in 
identifying the extent of mental health conditions and resource and 
training challenges being experienced in combat theaters.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey that the MHAT studies have 
played a key role in proactively identifying how changes in the 
operational environment impact the ability to provide behavioral health 
care. Both MHAT VI OEF and VII OEF recommended several critical measure 
that we have put into effect, namely the number of behavioral health 
personnel in theater to number of soldiers. One of the most valuable 
findings from the MHATs has been to document that soldiers suffering 
multiple deployments and/or short dwell times report higher mental 
health problems. Overall, the willingness to take a systematic look at 
the behavioral health care system and the behavioral health status of 
soldiers through programs such as the MHATs has ensured that the Army 
is being responsive to the needs of deployed soldiers. If confirmed, I 
will ensure that the Army continues to develop and synchronize the 
expeditionary components of health promotion, risk reduction, and 
suicide prevention programs and services.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on policies and procedures to improve 
the prevention of, and response to, incidents of sexual assault, 
including providing appropriate resources and care for victims of 
sexual assault and addressing the challenges that remain.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. Like General Dempsey, I am very concerned about reports of 
sexual assault in our Army, whether deployed or otherwise. We cannot 
tolerate this behavior wherever it occurs. The Army is committed to 
providing victims in all units with appropriate medical care, 
resources, and support while ensuring that our prevention and response 
programs are fully available and prepared. The Army's SHARP program is 
a formidable effort at dealing with this issue. There is no doubt that 
this is a challenging problem that will require leadership and constant 
vigilance at all levels, and if confirmed, I will continue to look 
closely at the Army's sexual assault program, to ensure there is trust 
and faith in the Army's programs and system, and that there is 
continuous oversight and leadership involvement.

                    MORALE, WELFARE, AND RECREATION

    Question. The committee's advance policy questions for General 
Dempsey raised a series of issues on Morale, Welfare, and Recreation 
(MWR) programs critical to the enhancement of military life for members 
and their families.
    We ask that you respond to the same questions. In doing so, you may 
incorporate General Dempsey's responses by reference, or provide your 
answer in the form of an explanation of any differences that you may 
have from, or areas in which you would like to further amplify, the 
views expressed by General Dempsey.
    Answer. I concur with General Dempsey that the Army has taken steps 
to ensure we care for and retain families through a broad range of 
meaningful initiatives, to include many family and MWR programs and 
services. The criticality of these programs is immeasurable and I feel 
we cannot afford to lose such a key enabler of our Force.
    The challenge will be in our resource-constrained environment to 
sustain a consistent level of funding for these programs. If confirmed, 
I will consult with commanders, soldiers, and families to ensure that 
these programs are adequate and meet their needs.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by the Deputy Secretary of Defense stating that 
all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. The U.S. military will continue to follow the 
principles of humane treatment outlined in Common Article 3. These 
basic rules of the law of armed conflict will continue to guide our 
conduct toward detainees, no matter how they were captured or how the 
conflict is characterized.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes. Both of these documents provide effective, practical 
guidance, and direction to the field on critically important issues 
relative to detainee treatment, detainee operations training, and the 
interrogation of detainees.
    Question. Do you believe it is consistent with effective military 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes. Common Article 3 has long provided the minimum 
standards of conduct for the U.S. military. Our forces have adhered to 
the humane treatment protections outlined in this article and they have 
been a part of U.S. policy on the law of war for many years.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. First, the Army is committed to adherence to the law of war 
and the humane treatment of detainees. The value of adherence to the 
rule of law in our operations cannot be underestimated--it ensures the 
trust and respect of the American people, enhances our international 
credibility, and establishes our professional credentials. Our 
professional and ethical conduct on the battlefield also earns the 
respect of the civilian populace we are sworn to protect on this 
asymmetric battlefield.
    I intend to emphasize the importance of conducting disciplined 
military operations, characterized by adhering to the laws of war, 
treating detainees humanely, and showing compassion and restraint on 
the modern battlefield.
    I would also seek to sustain and improve our existing systems for 
helping our soldiers to understand and adhere to the proper standards 
for detainee treatment, detention operations, and interrogations.
    Finally, when allegations of wrongdoing by soldiers surface, the 
Army will continue to fully investigate and hold soldiers accountable, 
as appropriate and consistent with the Uniform Code of Military 
Justice, if misconduct is substantiated.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chief of Staff of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Note: General Martin E. Dempsey's responses to his Advance 
Policy Questions from his nomination hearing dated March 3, 
2011, to be Chief of Staff of the U.S. Army, appear at the end 
of this transcript, located at Annex A.]
                                ------                                

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                              ARMY FORCES

    1. Senator Levin. General Odierno, in your advance policy 
questions, you note that ``during the last 10 years, the Army National 
Guard has transformed from a Strategic Reserve to an Operational 
Force.'' When considering the relationship between the Army's Active 
component and its Reserves and National Guard, in your view, what 
distinguishes a ``Strategic Reserve'' from an ``Operational Reserve'' 
and from an ``Operational Force''?
    General Odierno. We structure the Army--Active, National Guard, and 
Army Reserve--as a Total Force, responding together to meet the 
requirements of the combatant commanders. An important distinction 
between Strategic Reserves and Operational Reserves is readiness and 
length of time and resources required to deploy a unit to a theater of 
operation. Continuous investment in a Strategic Reserve is considerably 
less than that of an Operational Reserve because the Strategic Reserve 
has no immediate or short-term expectation of deployment; however, any 
rapid need for this force requires unprogrammed resources. The 
Operational Reserve has an assigned mission and must be at a higher 
state of readiness, similar to an Active Duty unit.
    The demand for U.S. ground forces over this past decade has 
highlighted the need for the Army to maintain an Operational Reserve to 
meet both current and future operational requirements. Reducing our 
presence in Iraq and Afghanistan will not alleviate the responsibility 
of the Army to be prepared to rapidly participate in the full spectrum 
of contingency operations across the globe. Maintaining an appropriate 
level of resourcing for the Operational Reserve coupled with Army Force 
Generation (ARFORGEN) will allow the mobilization of these forces on a 
predictable and recurring basis. It will be the enabling edge that 
ensures our success in a complex security environment. The operating 
force consists of the units (both Active and Reserve) whose primary 
missions are to participate in combat and the integral supporting 
elements thereof.

    2. Senator Levin. General Odierno, how would you treat each with 
respect to resource requirements and allocation if they are 
distinguished by different standards of readiness in manning, 
equipping, and training?
    General Odierno. We do not distinguish components by different 
standards of readiness. We structure the Army--Active, National Guard, 
and Army Reserve--as a Total Force, responding together to meet the 
requirements of the combatant commanders. To meet joint force 
requirements for rotational and contingency operations in the new 
security environment, the Army moved to the sustainable ARFORGEN 
system. Under ARFORGEN, standards of readiness in manning, equipping, 
and training of units are synchronized to meet their respective 
operational deployment mission and training/readiness timeline. We 
ensure that any unit, regardless of component, is resourced to 
accomplish its assigned mission. To enable us to keep all units ready 
we need continued assured access to the Reserves, and the resources to 
sustain readiness.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                 ARMY MAJOR WEAPONS PROCUREMENT PROCESS

    3. Senator McCain. General Odierno, as you likely know, a group 
chartered by the Secretary of the Army to look into how the Army 
procures major weapons systems found that, every year since 1996, the 
Army has spent more than $1 billion annually on programs that were 
ultimately cancelled. Since 2004, including the now-cancelled Future 
Combat System program, $3.3 billion to $3.8 billion (or 35 percent to 
42 percent) per year of Army developmental testing and evaluation 
funding has been lost to cancelled programs. The Center for Strategic 
Budgetary Assessments just recently came out with a similarly harsh 
assessment of how poorly major Army weapons programs have performed as 
promised. Do you agree that the Army cannot afford to continue losing 
funds in this manner? If so, how would you address it, if confirmed as 
the Army Chief of Staff?
    General Odierno. I agree that the Army must exercise very careful 
stewardship of the taxpayers' dollars, particularly in this time of 
budgetary constraints. Although the Army has clearly faced challenges 
with the development of major weapons systems, Secretary McHugh has 
undertaken an unprecedented review of the Army acquisition process. The 
Decker-Wagner panel examined weapons system procurements from ``cradle-
to-grave'' with a key focus on properly defining requirements. I 
understand that many of the Army's development and procurement problems 
stemmed from pursuing requirements that ultimately did not match the 
needs of the soldier, were cost prohibitive or were technologically 
infeasible. The Army has been working to implement many of the 
recommendations of the Decker-Wagner panel and many of these 
recommendations are already reflected in the acquisition strategy for 
the new Ground Combat Vehicle (GCV).
    If confirmed, I will work closely with the Secretary of the Army to 
ensure a unified effort to improve the effectiveness of the process to 
meet the capability needs of our force.

    4. Senator McCain. General Odierno, in your view, what are the 
lessons learned from the Army's experience with these failed major Army 
weapons programs?
    General Odierno. In my view, the most important lesson learned from 
past experience is that materiel solutions require diligent and 
complementary efforts throughout the acquisition lifecycle among the 
requirements, acquisition, and resourcing communities in pursuit of 
affordable and achievable solutions. Affordability and risk must be 
addressed from the earliest stages of requirements development 
throughout the execution of acquisition programs with an emphasis on 
what we can realistically afford and develop. The lessons learned from 
recent conflicts and prior acquisition efforts will help the Army 
invest limited fiscal resources in a responsible manner.

    5. Senator McCain. General Odierno, if confirmed, how would you 
help to ensure that the enormously expensive lessons learned from these 
failed major Army programs are brought to bear on the GCV program?
    General Odierno. I understand the Army acquisition community has 
already applied some of these lessons learned on the GCV program. Under 
the leadership of the Army Acquisition Executive, the Army assembled a 
team of senior subject matter experts as they refined the 900-plus GCV 
requirements and revised the original Request for Proposals. The Army 
team, which included members of the requirements, resourcing, 
contracting, and program management communities, developed a set of 
tiered requirements that distinguish critical must-have capabilities 
and provide industry with the necessary flexibility to develop vehicle 
designs that meet the Army's strict cost and schedule constraints. In 
addition, the GCV acquisition strategy implements innovative measures 
designed to keep the program on schedule and on budget, to include 
fixed price incentive fee contracts in the 2-year technology 
development phase, an increased emphasis on mature technologies and 
reliance on competition throughout the program as an incentive. In 
short, GCV is an example of the Army's implementation of acquisition 
reform.

                           ARMY MEADS PROGRAM

    6. Senator McCain. General Odierno, as you probably know, this 
committee declined to authorize the President's request for $407 
million to continue U.S. participation in the Army's troubled Medium 
Extended Air Defense System (MEADS) program. During the previous 
administration, the United States partnered with Italy and Germany to 
develop this aspect of the missile defense program in Europe. But, 
since then, this development effort dramatically overran in cost and 
has failed to perform as promised. Considerably frustrated with the 
program's failure and how the program addressed ``termination 
liability'' as to the United States, this committee zeroed out the 
administration's funding request for the program for fiscal year 2012. 
However, a few days ago, a top German defense official reportedly had 
strong words for the United States and the likelihood that it would 
unilaterally withdraw from the program. This official indicated that 
such a withdrawal was ``not an option'' and called on the Department of 
Defense (DOD) to uphold U.S. ``contribution commitments--even beyond 
the development phase''. What is your reaction to the German officials' 
comments and how this committee addressed the administration's funding 
request for the program?
    General Odierno. The President's fiscal year 2012 budget request 
funds MEADS development in fiscal year 2012 and fiscal year 2013 in 
accordance with the international agreement with Italy and Germany. The 
funding will complete a Proof of Concept effort to mature advanced air 
and missile defense technologies under the MEADS MOU and will culminate 
with two intercept flight tests in fiscal year 2013 using the PAC-3 
Missile Segment Enhancement (MSE) missile. The Proof of Concept is 
intended to place the program on sound footing should Germany and Italy 
wish to continue to production. Per recent correspondence to Dr. Carter 
from both German and Italian government officials, both partners have 
agreed that refocusing the remaining MEADS development as a Proof of 
Concept, as reflected in the President's budget, is the proper course 
of action and that is the course that we strongly recommend pursuing.

    7. Senator McCain. General Odierno, as far as you know, DOD's 
current plan is only to participate in the program inasmuch as it is 
restructured as a Proof of Concept program, as opposed to a larger 
development effort. But, the German official is clearly calling for the 
United States to modify its plan. Are you aware of any current interest 
whatsoever among leadership at the Army, or the Office of the Secretary 
of Defense (OSD), to change its approach as the German official 
suggested?
    General Odierno. No, the Army continues to support OSD's decision 
that DOD will participate only through the completion of the Proof of 
Concept approach.

                            personnel costs
    8. Senator McCain. General Odierno, what percentage of the U.S. 
Army is non-deployable due to medical conditions, being on a temporary 
retired status, or awaiting disability determinations prior to 
separation from military service?
    General Odierno. About 10 percent of soldiers currently serving in 
the Active Army are nondeployable due to medical conditions; this 
includes soldiers awaiting disability determinations and soldiers with 
temporary conditions. Soldiers on the Temporary Disability Retired List 
(TDRL) are retired and considered veterans, so they do not count 
against end strength.

    9. Senator McCain. General Odierno, do you know if that number has 
increased or decreased in recent years?
    General Odierno. Since January 2008, the number of soldiers in the 
Army's Disability Evaluation System (DES) has increased 169 percent 
(6,948 to 18,671). In the last year, we have seen a 50 percent increase 
in this population (12,419 to 18,671) and currently we have over 18,000 
soldiers in the DES. We currently have over 11,000 soldiers on the 
TDRL. Soldiers on the TDRL are retired and considered veterans, so they 
do not count against end strength, but we do use limited medical 
resources conducting their disability reevaluation. Since January 2008, 
the number of soldiers on the TDRL has increased 127 percent (4,959 to 
11,049), and in the last year we've seen an increase of 15 percent 
(9,586 to 11, 049). Normally, soldiers on the TDRL receive a medical 
reevaluation at least once every 18 months, and at any given time we 
have a third undergoing a medical reexamination.

    10. Senator McCain. General Odierno, do these prolonged processes 
represent costs that could be avoided in the personnel arena, and 
applied to other readiness requirements?
    General Odierno. The Army has 18,671 soldiers in the DES. Apart 
from the impact these nondeployable soldiers have on our ability to man 
contingency forces at 90 percent, the DES process diverts limited 
medical resources. Medical requirements for DES population increasingly 
compete for care with deploying SM, family members, and those 
recovering from wounds and injuries; the DES pulls limited medical 
resources away from treatment and rehabilitation.
    Additionally, there has been a significant increase in the number 
of administrative staff required to prepare for and manage the board 
process and to provide direct support to the soldiers going through the 
disability evaluation process.

    11. Senator McCain. General Odierno, as Chief of Staff of the Army, 
what actions do you think are necessary to address this issue?
    General Odierno. The DES is better than it was 4 years ago. 
Legislative changes have improved the consistency between Military and 
VA ratings, and the new joint DOD/VA DES has reduced the time it takes 
for soldiers separated for a disability to start receiving the VA 
benefits. However, the process remains complex, adversarial, not fully 
integrated, and takes far too long to complete.
    While the two departments have merged their separate disability 
systems, each still must follow the laws and policies specific to their 
own department. This dichotomy produces differing results. The military 
compensates only for conditions related to being unfit to serve while 
the VA compensates for all Service-connected conditions. Military 
conditions related to unfitness are a subset of all Service-connected 
conditions; so the military's combined rating is usually going to be 
less than VA's combined rating. This creates confusion, and causes 
soldiers to believe the Army does not recognize their complete medical 
condition in a deliberate effort to minimize disability compensation 
and limit access to other valuable benefits.
    As long as this system of dual adjudication exists, we are not 
going to have an integrated process. In a fully integrated process, the 
Military Services would determine fitness.

                           health care costs
    12. Senator McCain. General Odierno, in a modest attempt to control 
DOD's health care costs, former Secretary Gates sought to apply a 
medical inflation factor to TRICARE Prime enrollment fees for working-
age retirees beginning in fiscal year 2013. Unfortunately, our 
committee balked at that idea, and reported a bill that would 
permanently tie DOD's hands to annual increases to the annual increase 
in retired pay, which has been minimal.
    TRICARE fees haven't changed since they were established in 1995. 
At that time, according to DOD, working age retirees paid about 27 
percent of their total costs when using civilian care. Today, out of 
pocket expenses for working age retirees represent less than 9 percent 
of the total cost of the family's health care costs. Some argue that 
health care benefits to retirees have been eroded over time. Do you 
agree?
    General Odierno. Health care costs are increasingly becoming a 
larger part of everyone's budget including DOD's annual budget. 
Military health care costs have increased due to an expansion of 
benefits rather than an erosion, increased use of TRICARE, and no 
change to TRICARE premiums since the program began in 1995. Because of 
DOD's low enrollment costs compared with private health insurance, 
there has been a steady increase in retirees enrolling in TRICARE. The 
Army believes these proposals to raise the TRICARE enrollment fees for 
working age retirees and adjust future increases to be modest, gradual, 
and responsible. Even with this proposed fee change, TRICARE would 
remain one of the Nation's very best health benefits and beneficiaries 
would continue to have less out-of-pocket costs in comparison to 
Federal, State, and private health plans.

    13. Senator McCain. General Odierno, do you support the 
administration's modest goal of linking future increases in fees for 
working age retirees to a factor that relates to rising national 
medical costs?
    General Odierno. The Army, in partnership with DOD, is committed to 
preserving this health care benefit while recognizing that continued 
increases in costs are not sustainable. I support DOD efforts to work 
with Congress to find ways to help control escalating health care costs 
including fee increases for working age retirees that can be adjusted 
in some way to reflect rising national medical costs.

    14. Senator McCain. General Odierno, do you see the rise in health 
care costs as a threat to readiness, and if so, what would you do or 
recommend, if confirmed, to address this very serious issue for DOD?
    General Odierno. I share former Secretary of Defense Gates' 
concerns about the rise of DOD's health care expenditures and its 
impact on the overall DOD budget including readiness. I support DOD 
efforts to work with Congress to find ways to help control escalating 
health care costs. The Army, in partnership with DOD, is committed to 
preserving this health care benefit while recognizing that continued 
increases in costs are not sustainable. Even with the proposed fee 
changes DOD recommended for fiscal year 2012, TRICARE would remain one 
of the Nation's very best health benefits and beneficiaries would 
continue to have less out-of-pocket costs in comparison to Federal, 
State, and private health plans. I believe this proposal balances our 
commitment to preserve readiness while slowing future growth in health 
care costs.

                         ground combat vehicle
    15. Senator McCain. General Odierno, please describe the 
operational urgency driving a GCV by 2017.
    General Odierno. Lessons from the last 10 years of sustained combat 
operations indicate that the Bradley Infantry Fighting Vehicle (IFV) is 
no longer capable of fully meeting the necessary levels of protection, 
fire power, and mobility requirements that our infantrymen will need as 
they face both current and future hybrid and conventional threats. We 
will counter that threat by building a GCV IFV that has the mobility to 
keep up with, communicate with, and survive alongside the improved 
Abrams Main Battle Tank. We believe the Bradley IFV will have reached 
its capacity to improve in these areas upon completion of its next 
modernization efforts. The GCV's research, development, test, and 
evaluation and production timeline (7 years from technology development 
contract award) should provide vehicles that have the increased 
protection, mobility, and network capability to maneuver and fight 
alongside the Abrams, meet our near-term threats, and have the capacity 
to grow in the future.

    16. Senator McCain. General Odierno, would GCVs be employed within 
Heavy Brigade Combat Teams (BCT) as part of GCV/Bradley mixed fleet?
    General Odierno. Yes. The GCV will replace the Bradley IFV in the 
Heavy BCTs as unit sets.

                             mrap vehicles
    17. Senator McCain. General Odierno, what is the Army's plan to 
recapitalize and incorporate thousands of mine resistant ambush 
protected (MRAP) vehicles into the wheeled vehicle fleet?
    General Odierno. In accordance with the Army's Tactical Wheeled 
Vehicle Strategy and the Army Campaign Plan, the Army plans to 
incorporate most of the MRAP Family of Vehicles (FOV) into enduring 
force structure, while divesting a small number of low-density and 
under-utilized variants such as the RG33L, MAXXPro XL, and Caiman CAT 
II XM1220. The Army will work closely with the Office of the Secretary 
of Defense and the MRAP Joint Program Office to reset/recapitalize the 
MRAP variants selected for retention. The reset/recapitalization will 
incorporate upgrades to standardize variants to a common baseline as 
vehicles are retrograded from theater. The upgrades will infuse 
commonality, increase survivability, mobility, and sustainability to 
meet emerging hybrid threats. Today the MRAP FOV is comprised of 25 
variants delivered by 6 different manufacturers. With the required 
resources, these upgrades will reduce the MRAP FOV to nine variants 
produced by four manufacturers and provide soldiers with the greatest 
capability available. The Army plans a balanced distribution of MRAP 
vehicles with 37 percent going into units and training bases, 59 
percent into Army Prepositioned Stocks, and 4 percent going into Army 
War Reserve and Contingency Retention Stocks.

    18. Senator McCain. General Odierno, where do these vehicles fit 
into the force structure?
    General Odierno. The Army plans a balanced distribution of MRAP 
vehicles into units, training bases, Army Prepositioned Stock, Army War 
Reserve, and Contingency Retention Stocks. This distribution of MRAPs 
maximizes their capabilities (primarily protection) based on 
operational needs by making MRAPs available to deployed formations in 
sets configured to their needs. They will also fill specific mission 
roles in Army units where there are gaps.

                         nondeployable soldiers
    19. Senator McCain. General Odierno, what is the total number of 
nondeployable soldiers currently serving?
    General Odierno. There are about 92,000 soldiers currently serving 
in the Active Army that are nondeployable for one or more reasons; the 
majority of these are temporary conditions.

    20. Senator McCain. General Odierno, of this total, how many have a 
permanent profile which would prevent them from ever deploying?
    General Odierno. There are about 15,000 soldiers currently serving 
in the Active Army who have a permanent (P3 or P4) profile. More than 
90 percent of these soldiers will be separated from service upon 
completion of their Medical Evaluation Board (MEB)/Physical Evaluation 
Board (PEB).

    21. Senator McCain. General Odierno, what is your intent with 
regard to permanently non-deployable soldiers?
    General Odierno. Ninety-nine percent of soldiers identified as 
permanently nondeployable for other than medical reasons are in the 
process of separating from the Army. Of the soldiers with permanent (P3 
or P4) profiles who are referred to the MEB/PEB process, more than 90 
percent will ultimately be separated from service. For those who are 
retained, the Army is currently exploring options to more heavily 
weight deployability as a criterion for retainability.

    22. Senator McCain. General Odierno, how would you characterize the 
efficiency of the Army's medical review board process?
    General Odierno. The Army's medical review board process is very 
complex, lengthy, and confusing. The transformation from legacy 
disability processing to the Integrated Disability Evaluation System 
(IDES) has been a gradual process in the Army since November 2007. The 
DES is better than it was 4 years ago. Although legislative changes and 
the new IDES have made the system less adversarial, it has not made the 
process more efficient.
    IDES facilitates soldiers/veterans receiving VA disability ratings 
in concurrence with the Service's disability process. IDES has provided 
greater consistency between Military and VA ratings, reduced the time 
it takes for a soldier to start receiving VA benefits after separation, 
and increased soldiers' satisfaction. But the amount of time to process 
veterans under IDES has actually increased due to the many additional 
VA exams that were not required under the previous process.

                              end strength
    23. Senator McCain. General Odierno, former Secretary of Defense 
Gates previously announced that Army end strength will be reduced by 
some 49,000 troops over the next 5 to 10 years, beginning with 7,400 
fewer troops in 2012. Do these reductions introduce risk to continued 
operations in Afghanistan?
    General Odierno. No, the initial end strength reductions in 2012 
are a portion of the planned decrease of the temporary end strength 
increase approved in 2009. For the remaining end strength reductions, 
the Army will use a deliberate process and take into consideration 
operational demands, unit readiness, and those actions necessary to 
sustain and care for the All-Volunteer Force. Our plan will proceed at 
a pace necessary to ensure mission success and retain flexibility to 
respond to unforeseen demand.

    24. Senator McCain. General Odierno, what is the personnel 
reduction threshold for force structure change?
    General Odierno. Army force structure is dependent on the Army end 
strength limit. Any reduction in Army end strength drives reductions to 
force structure. The Army is coordinating end strength reductions with 
its deliberate Total Army Analysis (TAA) process to ensure Army force 
structure contains the required capability and capacity to meet current 
and future operational requirements within its authorized end strength.

    25. Senator McCain. General Odierno, in your view, what is the 
optimal end strength number to meet worldwide commitments?
    General Odierno. The Army continuously analyzes current and 
projected factors such as assigned missions, operational demands, unit 
readiness, soldier and family well-being, Reserve component capability 
and capacity, and fiscal constraints in order to achieve the required 
Active-Duty end strength. The highly analytical process to determine 
force structure is called the TAA. The focus of our TAA process is to 
answer this very question while considering the uncertainty of future 
operational requirements. The answer to your question is dependent on 
what America is asking its Army to do; it is entirely driven by demand. 
For today, the Active Army end strength is 569,400; end strength in the 
future could be higher or lower depending on missions assigned. As 
worldwide commitments change, our optimal end strength number will 
change as well.

    26. Senator McCain. General Odierno, what does dwell-time for the 
average soldier look like in a post-Iraq environment?
    General Odierno. Individual dwell time varies greatly among grades 
and specialties and is largely a function of demand. As the demand for 
our forces decreases, we expect most soldiers will continue to 
experience dwell periods of longer duration.

                             guard/reserve
    27. Senator McCain. General Odierno, what practical changes will be 
implemented to transition the Army National Guard and Army Reserve into 
operational forces?
    General Odierno. This year, DOD requested a change in title 10, 
U.S.C., section 12304, that would allow the Reserve components to be 
involuntarily activated with prior coordination at the service chief 
level, and provide the necessary budgetary authority to support the 
deployment. This will allow for the continued critical contributions of 
the Reserve component. This proposal would ensure that DOD is able to 
utilize the National Guards' unique capability throughout the world and 
codify the requirement for the National Guard as an operational force.
    In addition, by continuing the use of the ARFORGEN cycle, the Army 
can maintain an Operational Reserve that is more integrated into the 
day-to-day military operations, and participates at a higher level of 
operational missions. The Army, in coordination with the National Guard 
Bureau, has also developed a training strategy for units to participate 
in collective training, including additional inactive duty training, 
annual training, and Active Duty days. This strategy achieves company 
level proficiency for all units as they move into the available force 
pool.
    Estimates for the cost of the Reserve's operational role vary. 
Overseas contingency operation accounts currently fund much of the 
Reserve component deployments, training, and family support. To ensure 
continued funding to support the Reserve component as an operational 
force, the Army has included the National Guard's operational role in 
its future budget planning.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                  army modular transformation strategy
    28. Senator Chambliss. General Odierno, in one of the advance 
policy questions regarding what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy, you 
replied that ``if confirmed, [you] will continue to review Army plans 
and strategies, including the modular transformation strategy, force 
structure, and modernization to ensure the Army continues to provide 
the joint force with the best mix of capabilities to prevail in today's 
wars, and engage to build partner capacity, support civil authorities, 
and deter and defeat potential adversaries.'' In your opinion, are we 
lacking any capabilities within the joint force to prevail in today's 
wars? If so, what are they?
    General Odierno. The Army, as part of the joint force, has 
sufficient capability to prevail in today's wars. Building partner 
capacity, stability operations, and counter insurgency operations have 
been primary missions of the Army for the past 10 years and we have 
incorporated lessons learned across the entire force. We are 
exceedingly proficient in these operational missions with the current 
force in support of today's wars. There are concerns regarding the 
downsizing of Army force structure associated with our ability to meet 
the continued demand, and our ability to be proactive in order to 
prevent and prevail in future conflicts. We have to ensure that the 
drawdown of our force structure is coordinated with the reduction in 
forces committed to ongoing operations. Additionally, we have to ensure 
that the drawdown will not adversely affect the ability of the Army to 
train for full spectrum operations to provide strategic flexibility for 
the Nation.

    29. Senator Chambliss. General Odierno, is the Army's current mix 
of capabilities properly apportioned to accomplish the tasks we must do 
now, such as building partner capacity, supporting civil authorities, 
and deterring and defeating potential adversaries?
    General Odierno. The Army's sustainable capacity for steady-state 
combatant command requirements is known as the Mission Force, currently 
comprised of one corps headquarters, five division headquarters, 20 
brigade combat teams, and approximately 90,000 troops worth of enabling 
capabilities. A Mission Force of this size satisfies steady-state 
combatant command demands, meets the national military strategy 
objectives, and facilitates the Army's dwell-time goals to allow time 
for reset, training, and troop recovery.
    The Mission Force is currently operating at a greater velocity than 
designed because higher than expected demand by combatant commanders. 
These satisfied demands include the Iraq and Afghanistan campaigns, 
global posture requirements in Korea, the Army contribution to the 
Global Response Force and DOD Homeland defense requirements, and other 
missions such as Multi-National Force and Observers force in the Sinai. 
As the Army completes its Iraq force draw down and begins its 
Afghanistan force draw down, the Mission Force will begin to build 
toward its dwell goals and be better postured to satisfy combatant 
command demands related to building partnership capacity and other 
security cooperation activities outside the Central Command area of 
responsibility.
    While the Army will be able to meet all combatant commander 
requirements, it will take a few challenging years to fully reset 
equipment, replenish prepositioned stocks, reintegrate Army families, 
and train forces for full spectrum operations. At that point the Nation 
will have true strategic flexibility and will have reduced both 
strategic and military risk in the mid- to long-term.

    30. Senator Chambliss. General Odierno, in a resource-constrained 
environment, could embedding critical, indirect enablers responsible 
for building partner capacity and providing support to civil 
authorities, such as civil affairs personnel, within BCTs help the Army 
accomplish these critical tasks and save precious Army resources?
    General Odierno. Enabling capabilities such as medical, legal, and 
civil affairs are vital augmentation to the BCT's capabilities. 
Augmenting the BCTs with modular, cohesive unit enabling capabilities 
ensures that the right augmentation is fully capable to support the 
commander, can be tailored to the specific mission, and allows rapid 
increase or decrease depending on the environment. Some indirect 
enablers such as medical and legal personnel have a role in building 
partner capacity and providing support to civil authorities but also 
serve a day-to-day function within the BCTs. Other enablers such as 
civil affairs and foreign area officers don't have a day-to-day 
function inside the BCT but have a role in building partner capacity 
and providing support to civil authorities. Therefore, the Army is 
effectively and efficiently served by civil affairs forces that can 
support multiple BCTs, as needed. We are working on attaining the 
correct balance of enablers between the Active component and Reserve 
component.

    31. Senator Chambliss. General Odierno, if the Army continues to 
build a second Civil Affairs Brigade to support the General Purpose 
Forces, what then do we do with the preponderance of the Nation's 
tactical Civil Affairs force structure located in the Army Reserve?
    General Odierno. The ability of the Army to provide sufficient 
Civil Affairs tactical capability to the General Purpose Force for two 
or more simultaneous conflicts has been significantly enhanced by the 
inclusion of the 85th Civil Affairs Brigade to the nine Reserve Civil 
Affairs Brigades. Over the past 10 years, the Army Reserve had to make 
up for a shortage of Active component Civil Affairs by deploying 
Reserve units more often than any other type of Reserve unit. While a 
second Active component brigade will provide Civil Affairs capability 
on a more rapidly available and rotational basis, the Army Reserve 
Civil Affairs will continue to provide support for the long-term with 
planned, predictable missions of Building Partner Capacity throughout 
the world. In addition, the Army Reserve will continue to provide the 
capacity to surge as missions require.
    The new Active Duty Civil Affairs Brigade will enable the Army to 
concentrate the Reserve component Civil Affairs Units on their 
functional skills and redevelop the capability to conduct Transitional 
Military Authority (Military Government) while providing the capacity 
to support maneuver brigades and geographical combatant commanders in 
phase zero operations.

    32. Senator Chambliss. General Odierno, how do we further integrate 
Army Reserve Civil Affairs forces and their vitally important civilian 
skills and expertise into the future Army?
    General Odierno. Army Reserve Civil Affairs forces bring unique 
skill sets and experience to augment the capabilities of the Army. 
These skills and experience enable the United States to fulfill its 
obligations under the Geneva Conventions to provide for the care and 
governance of the areas we occupy pending transfer of this 
responsibility to other authority. Army Reserve Civil Affairs forces 
should be the vanguard of our Nation's capability to provide for the 
care and governance of ungoverned populations and to provide training 
to our partner nations to do the same. The specific functional skills 
such as agriculture, education, and economics will be valuable to the 
combatant commands in operations supporting building partner capacity.
                                 ______
                                 
               Question Submitted by Senator Kelly Ayotte
                   private first class bowe bergdahl
    33. Senator Ayotte. General Odierno, Private First Class (PFC) Bowe 
Bergdahl, U.S. Army, was captured by the Taliban over 2 years ago, on 
June 30, 2009, in Paktika province in eastern Afghanistan. As the only 
known U.S. soldier held captive in Afghanistan by enemy belligerents, I 
want to ensure that we are doing everything we can to obtain his 
release. What is PFC Bergdahl's status, and what is DOD doing to obtain 
his release?
    General Odierno. Sergeant (then-PFC) Bowe R. Bergdahl, of Hailey, 
Idaho, was declared Missing-Captured on July 3, 2009, after he was 
discovered missing from his combat outpost in Afghanistan on June 30, 
2009. At the time of his capture, SGT Bergdahl was assigned to 1st 
Battalion, 501st Parachute Infantry Regiment, 4th BCT, 25th Infantry 
Division.
    Sergeant Bergdahl is one of two U.S. military members, both U.S. 
Army soldiers, currently listed by DOD as having the duty status 
``Missing-Captured,'' the other soldier being SSG Ahmed Altaie. U.S. 
Central Command is responsible for the ongoing efforts in theater to 
recover both soldiers. For the safety and security of the soldiers and 
units involved, the details of these efforts remain classified.
    Sergeant Bergdahl's parents continue to receive regular updates 
from DOD regarding significant developments in the efforts to recover 
their son.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                            fort hood attack
    34. Senator Collins. General Odierno, as ranking member of the 
Senate Homeland Security and Governmental Affairs Committee, I worked 
with Senator Lieberman to investigate the U.S. Government's failure to 
prevent the Fort Hood attack. One of the most distressing aspects of 
this report was that it found the Army and the Federal Bureau of 
Investigation ``collectively had sufficient information necessary to 
have detected Major Hasan's radicalization to violent Islamist 
extremism but failed both to understand and to act on it.'' In light of 
the Fort Hood attack and the findings in this report, what steps has 
the Army taken to improve personnel oversight such that warning signs 
of individual problems are identified and acted on as early as 
possible?
    General Odierno. The Army has implemented over 20 of the 
recommendations proposed by the DOD's Independent Review Panel and the 
Army's Internal Review Team and continues to improve its ability to 
identify and quickly respond to potential insider threats to the force.
    In January 2011, the Army established the Army Protection Program 
(APP) to better manage risks relative to the safety and security of our 
soldiers, families, civilians, infrastructure, and information. The 
program provides a strategic management framework to synchronize, 
prioritize, and coordinate Army protection policies, resources, and 
activities.
    As part of the APP, the Army is developing a Security Resiliency 
Program to strengthen security policies, processes, and systems, and 
provide the Army an enterprise approach to addressing the ``insider 
threat''. One of the key components of the strategy is to focus on 
deterring and preventing insider threats through improved personnel 
security and suitability screenings, counterintelligence and security 
awareness training, improved information sharing, and an Automated 
Continuous Evaluation System to proactively alert and flag issues of 
concern for cleared personnel.
    The Army also established a Counterintelligence/Security Fusion 
Cell to review and flag security background investigations to identify 
threat, security, and other high-risk behavioral concerns. 
Additionally, the Army expanded the Threat Awareness and Reporting 
Program and the Security Education Training and Awareness Program. 
These programs increase awareness of potential adverse behaviors and 
provide a systematic approach to threat reporting and educating all 
commanders and leaders on their roles and responsibilities for 
reporting adverse information.
    The Army revised its policy regarding command-directed mental 
health evaluations. Behavioral health providers are now required to 
report to the soldier's chain of command within 24 hours, those 
individuals who may present a risk to the protection of classified 
information, and commanders must notify the Army Central Clearance 
Facility when concerns are noted.
    The Army has reinforced, through Army-wide messages, commander and 
soldier roles and responsibilities to report threat-related incidents 
and behaviors deemed detrimental to good order and discipline 
(including violent behavior and prohibited activities). The goal is to 
improve knowledge of which behaviors to report, who to report them to, 
and the importance of Army leaders taking appropriate action when 
behavior or activity is reported. The result will be a better awareness 
of potential insider threats, early intervention, and a safer 
environment for our Army community, installations, and activities.
    The Army has improved its behavior health screenings for new Army 
applicants by requiring medical personnel to conduct face-to-face 
screenings at all 65 Military Entrance Processing Centers utilizing 
five questions that better assess the potential behavioral health 
issues. The Army is consulting with national experts (e.g., Columbia 
University, Harvard University, National Institute of Mental Health, et 
cetera) to develop, test, evaluate, and deliver improved behavior 
health screening tools.

                               dwell time
    35. Senator Collins. General Odierno, the Army plans to reduce its 
end strength by 22,000 soldiers in 2013 and 27,000 soldiers in 2015 and 
beyond as we draw down forces in Iraq and Afghanistan. Army officials 
and mental health experts have repeatedly said that a dwell time of 2 
years at home for every 1 year deployed is the minimum time necessary 
to preserve the long-term mental and physical well-being necessary to 
sustain our soldiers and our Army over the long-term. Can you assure me 
that the Army's manpower reductions will not be made until the Army has 
reached its target dwell time of 2 years at home for every 1 year 
deployed for soldiers, and specifically for those soldiers who are in 
the combat arms, who have served on the frontlines for the last 10 
years of war?
    General Odierno. Boots-on-the-ground (BOG) time to dwell time 
ratios are largely based on demand; given the current strategic 
guidance and the associated projected future requirements, the Army can 
achieve and sustain 1:2 BOG to dwell ratio for high demand and low 
density units. The Army expects to improve on this ratio and have 
sufficient troops to respond to unforeseen events. With current and 
projected force demand consistent with current strategic guidance, and 
with some exceptions, the Army will adopt shorter deployment periods (9 
months) for division-level-and-below units in 2012.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                            dod budget cuts
    36. Senator Cornyn. General Odierno, in the President's April 
speech on debt reduction, he targeted security spending for $400 
billion in cuts over the next 12 years, the preponderance of which is 
expected to come from the DOD budget. However, news reports are now 
indicating that DOD is bracing for much deeper cuts, potentially 
reaching $800 billion or more over the next decade. In your opinion, 
what impact would deeper cuts have on our ability to adequately meet 
our national security requirements, maintain our Nation's historic 
military superiority, and provide the requisite resources and support 
for our soldiers?
    General Odierno. Deeper cuts would impact the level of risk, both 
to soldiers and to mission accomplishment. Based on the challenges we 
faced in finding efficiencies to make $400 billion in cuts, I believe 
that $800 billion in cuts would be extremely high risk. The Army is 
committed globally, and we must be able to accomplish the unforeseen 
when called to do so. We will reduce the size of our Army by ensuring 
we remain in balance with synchronized adjustments of manpower, 
modernization, training, maintenance, and infrastructure. We are also 
determined to honor our commitments to the force by fully resourcing 
the most important family programs, transitioning to a 9-month BOG 
commitment and holding, as a minimum, a 1:2 BOG-dwell ratio. Our end 
state is to provide a force capable of meeting the current National 
Military Strategy with enough flexibility to provide the National 
Command Authority the greatest possible number of options for an 
uncertain future.

                        army acquisition reform
    37. Senator Cornyn. General Odierno, according to the final report 
of the 2010 Army Acquisition Review, between 1990 and 2010, the Army 
terminated 22 major acquisition programs before completion, totaling at 
least $32 billion--which represents almost one-third of the Army's 
budget for creating new weapons. The report notes that, ``Every year 
since 1996, the Army has spent more than $1 billion annually on 
programs that were ultimately cancelled.'' Since 2004, $3.3 billion to 
$3.8 billion per year (35 percent to 45 percent) of the Army's 
Developmental, Test, and Evaluation funding has been lost to cancelled 
programs. In my view, this represents extremely poor stewardship of 
taxpayers' dollars. In your opinion, what are the primary problems in 
the Army's acquisition process that have caused these program 
cancellations, and what can be done to end this decade-long trend of 
sinking billions of dollars into trying to develop weapons systems that 
will never be fielded?
    General Odierno. I understand the Army acquisition community has 
already applied some of these lessons learned on the GCV program. Under 
the leadership of the Army Acquisition Executive, the Army assembled a 
team of senior subject-matter experts as they refined the 900-plus GCV 
requirements and revised the original Requests for Proposals. The Army 
team, which included members of the requirements, resourcing, 
contracting, and program management communities, developed a set of 
tiered requirements that distinguish critical must-have capabilities 
and provide industry with the necessary flexibility to develop vehicle 
designs that meet the Army's strict cost and schedule constraints. In 
addition, the GCV is the first major program to implement innovative 
measures designed to keep the program on schedule and on budget, to 
include fixed price incentive fee contracts in the 2-year technology 
development phase, an increased emphasis on mature technologies as well 
as reliance on competition throughout the program as an incentive. We 
will continue to monitor the GCV and assess these acquisition reform 
initiatives. I am committed to continue acquisition reform to assure 
effectiveness in attaining our future capability requirements.

                         army basing in europe
    38. Senator Cornyn. General Odierno, earlier this year, the Army 
announced its decision to reduce the number of Army BCTs it has in 
Europe from four to three after 2015. This development is a change from 
the 2004 plan, which called for withdrawing two of the BCTs and leaving 
two in Europe. Reports have indicated the original plan was suspended 
due to concerns that it would hamper the U.S. military's ability to 
respond to trouble in Africa and the Middle East, leave it unable to 
fulfill its commitments to North Atlantic Treaty Organization (NATO), 
or leave it unable to engage effectively with European allies. 
Maintaining large units like BCTs overseas is very expensive, 
especially when substantial new military construction funding is 
involved, as with the Army plan for maintaining BCTs in Europe. With 
the Army budget under increasing pressure, keeping so many BCTs in 
Europe will involve trade-offs elsewhere in the Army budget. Would it 
not be more cost-effective to bring additional BCTs home to posts in 
CONUS, especially when the Army has posts in CONUS that already have 
the infrastructure and facilities in place to support another BCT and 
provide training opportunities far superior to those reasonably 
available in Europe?
    General Odierno. The Army is considering the disposition of BCTs in 
Europe as part of TAA 14-18 and Program Objective Memorandum (POM) 
deliberations. No decisions have been made. The cost-effectiveness of 
BCT stationing decisions will be considered as part of this process.

    39. Senator Cornyn. General Odierno, do our European allies not 
have their own capable militaries to provide for their national 
defense?
    General Odierno. Our European allies have modern militaries, but 
with limited capabilities because they are not designed to provide 
stand-alone, 360-degree national defense. Their militaries, through the 
NATO Defense Planning Process, are designed to provide their nation's 
contribution to the collective defense of all 28 members of the NATO 
alliance, as stipulated by Article 5 of the Washington Treaty.

                          afghanistan drawdown
    40. Senator Cornyn. General Odierno, on June 22, 2011, President 
Obama announced he would withdraw 10,000 troops from Afghanistan by the 
end of this year and another 23,000 by next summer, resulting in a 
complete drawdown of the 33,000 troop surge by September 2012. 
Following the President's announcement, Admiral Mullen testified to the 
House Armed Services Committee that: ``the President's decisions are 
more aggressive and incur more risk than I was originally prepared to 
accept.'' Do you agree with Admiral Mullen's statement? If so, what 
pace of drawdown do you believe will incur an acceptable level of risk?
    General Odierno. The National Command Authority has directed the 
surge recovery of troop strength in Afghanistan. The Army is postured 
to support the drawdown. The drawdown in Afghanistan will enable the 
Army to better posture itself for potential contingency operations and 
future operations as determined by the National Command Authority.
    As the Army completes its responsible drawdown from Iraq and begins 
its Afghanistan force recovery, it will achieve the higher dwell time 
goals it has sought and be better-postured to satisfy combatant command 
demands related to building partnership capacity and other security 
cooperation activities.
    While the Army will continue to be able to meet all combatant 
commander requirements, it will take a few challenging years to fully 
reset equipment, replenish prepositioned stocks, reintegrate Army 
families, and train forces for Full Spectrum Operations. At that point 
the Nation will have true strategic flexibility and will have reduced 
both strategic and military risk in the mid- to long-term.

                                 libya
    41. Senator Cornyn. General Odierno, in the early 1990s, then-
Chairman of the Joint Chiefs of Staff, General Colin Powell, laid out 
his policies for conducting military operations, which have since come 
to be known as the Powell Doctrine. General Powell stated that: ``We 
should always be skeptical when so-called experts suggest that all a 
particular crisis calls for is a little surgical bombing or a limited 
attack. When the surgery is over and the desired result is not 
obtained, a new set of experts then comes forward with talk of just a 
little escalation . . . history has not been kind to this approach to 
warmaking.'' Regarding the air war over Libya, do you believe that a 
vital U.S. national security interest was or is threatened there?
    General Odierno. The stability of the region, especially following 
the transformational effects of the Arab Spring, is a national security 
interest for the United States.

    42. Senator Cornyn. General Odierno, does the United States have a 
clear, attainable objective in Libya? If so, what is that objective?
    General Odierno. Yes, the goal of the NATO-led military effort and 
the mandate of the U.N. resolution is very clear: to protect the Libyan 
people. While forced regime change is not specified in the military 
mission, this mission complements other instruments of power and will 
add significant pressure on Colonel Qadhafi over time to step down.

                           army surface fleet
    43. Senator Cornyn. General Odierno, the Army currently operates a 
fleet of over 100 ships, used mostly for logistics purposes. The 
vessels range from large landing ships to medium-sized and smaller 
utility landing craft, to a force of tugboats and barges. Those vessels 
are operated by over 2,000 soldiers and another 200 civilians in 
support roles. A 2010 report by Defense News stated that the Army was 
in discussions with the Navy over the potential transfer of the Army's 
watercraft mission and its vessels. In today's Joint Service, does it 
make sense for the Army to continue operating a fleet of over 100 
ships?
    General Odierno. While it is true that the Army was in discussions 
with the Navy over potential transfer of the Army's watercraft mission 
and its vessels over the past year, we have mutually concluded that it 
makes sense for the Army to continue operating a fleet of over 100 
watercraft.
    Army watercraft are a critical maneuver element that enable Army 
logistics operations and bridge the sea-land gap. We envision expanded 
roles and missions for Army watercraft in the 21st century, and we can 
gain better efficiencies in partnering our capabilities with the Navy 
versus combining them.
    However, the Army and Navy did agree to transfer the Joint High 
Speed Vessel (JHSV) program, in which the Army was to receive five 
JHSVs starting in 2012, to the Navy. A Memorandum of Agreement (MOA) to 
that effect has been signed by the Secretaries of both Services, and 
appropriate budget transfers have been made.
    Joint doctrine directs the Army to prepare for land combat and 
provide watercraft support in a theater of operations. In sourcing 
watercraft support for land combat ashore, the Army will be called upon 
to perform the post-assault resupply mission for joint and combined 
operations that may also include coastal and inland waterway 
transportation. Army watercraft also supports Joint Logistics-Over-The-
Shore operations, requiring Army watercraft to be capable of performing 
a wide range of ship-to-shore cargo transfer and harbor utility 
functions in support of full fixed ports, partial fixed ports, or bare 
beach operations.
    The mission of Army watercraft is different from the mission of 
Navy watercraft. Army watercraft executes a tactical port mission, 
conducting distribution and operational maneuverability within a 
theater in support of combatant commanders. The Army is also 
responsible for operating common user ports, and the watercraft are 
critical to performing that function. These are not carriers, 
destroyers, or the submarines that immediately come to mind when one 
envisions the Navy. The Navy watercraft that are similar to Army 
vessels assist in the establishment of beachheads for the U.S. Marine 
Corps. In today's joint environment, these capabilities complement one 
another rather than create redundancies. The Army watercraft support 
all Services based on combatant commanders' theater support 
requirements.
    Over the past few years, the Army has conducted three separate 
capabilities-based assessments associated with watercraft requirements 
in the joint environment. The results from all three of those 
assessments repeated the same message: the need exists for the Army to 
continue to operate a small amount of watercraft to support Army and 
joint operations.

    44. Senator Cornyn. General Odierno, please comment on the proposed 
transfer of this mission and assets from the Army to the Navy, and 
provide a status update.
    General Odierno. While it is true that the Army was in discussions 
with the Navy over potential transfer of the Army's watercraft mission 
and its vessels over the past year, we have mutually concluded that it 
makes sense for the Army to continue operating a fleet of over 100 
watercraft.
    Army watercraft are a critical maneuver element that enable Army 
logistics operations and bridge the sea-land gap. We envision expanded 
roles and missions for Army watercraft in the 21st Century, and we can 
gain better efficiencies in partnering our capabilities with the Navy 
versus combining them.
    However, the Army and Navy did agree to transfer the JHSV program, 
in which the Army was to receive five JHSVs starting in 2012, to the 
Navy. An MOA to that effect has been signed by the Secretaries of both 
Services, and appropriate budget transfers have been made.
    Joint doctrine directs the Army to prepare for land combat and 
provide watercraft support in a theater of operations. In sourcing 
watercraft support for land combat ashore, the Army will be called upon 
to perform the post-assault resupply mission for joint and combined 
operations that may also include coastal and inland waterway 
transportation. Army watercraft also supports Joint Logistics-Over-The-
Shore operations, requiring Army watercraft to be capable of performing 
a wide range of ship-to-shore cargo transfer and harbor utility 
functions in support of full fixed ports, partial fixed ports, or bare 
beach operations.
    The mission of Army watercraft is different from the mission of 
Navy watercraft. Army watercraft executes a tactical port mission, 
conducting distribution and operational maneuverability within a 
theater in support of combatant commanders. The Army is also 
responsible for operating common user ports, and the watercraft are 
critical to performing that function. These are not carriers, 
destroyers, or the submarines that immediately come to mind when one 
envisions the Navy. The Navy watercraft that are similar to Army 
vessels assist in the establishment of beachheads for the U.S. Marine 
Corps. In today's joint environment, these capabilities complement one 
another rather than create redundancies. The Army watercraft support 
all Services based on combatant commanders' theater support 
requirements.
    Over the past few years, the Army has conducted three separate 
capabilities-based assessments associated with watercraft requirements 
in the joint environment. The results from all three of those 
assessments repeated the same message: the need exists for the Army to 
continue to operate a small amount of watercraft to support Army and 
joint operations.
                                 ______
                                 
    [The nomination reference of GEN Raymond T. Odierno, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of Staff, 
U.S. Army, and appointment to the grade indicated while assigned to a 
position of importance and responsibility under title 10, U.S.C., 
sections 601 and 3033:

                             To be General

    GEN Raymond T. Odierno, 0000.
                                 ______
                                 
    [The biographical sketch of GEN Raymond T. Odierno, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of GEN Raymond T. Odierno, USA
Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy, BS, No Major
    North Carolina State University, MS, Engineering, Nuclear Effects
    U.S. Naval War College, MA, National Security and Strategy

Military schools attended:
    Field Artillery Officer Basic and Advanced Courses
    U.S. Naval Command and Staff College
    U.S. Army War College

Foreign languages: None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  2 June 76
1LT.......................................  2 June 78
CPT.......................................  1 Aug. 80
MAJ.......................................  1 Dec. 86
LTC.......................................  1 Feb. 92
COL.......................................  1 Sep. 95
BG........................................  1 July 99
MG........................................  1 Nov. 02
LTG.......................................  1 Jan. 05
GEN.......................................  16 Sep. 08
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Oct. 76.........................  Jan. 78...........  Support Platoon
                                                       Leader, later
                                                       Firing Platoon
                                                       Leader, C
                                                       Battery, 1st
                                                       Battalion, 41st
                                                       Field Artillery,
                                                       56th Field
                                                       Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jan. 78.........................  Aug. 78...........  Survey Officer,
                                                       1st Battalion,
                                                       41st Field
                                                       Artillery, 56th
                                                       Field Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Aug. 78.........................  Oct. 79...........  Aide-de-Camp to
                                                       the Commanding
                                                       General, 56th
                                                       Field Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Nov. 79.........................  July 80...........  Student, Field
                                                       Artillery
                                                       Advanced Course,
                                                       Fort Sill, OK
Aug. 80.........................  Dec. 80...........  Liaison Officer,
                                                       1st Battalion,
                                                       73d Field
                                                       Artillery, XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Dec. 80.........................  Dec. 82...........  Commander, Service
                                                       Battery, later A
                                                       Battery, 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Dec. 82.........................  May 83............  Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
June 83.........................  May 84............  S-3 (Operations),
                                                       3d Battalion, 8th
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
June 84.........................  Aug. 86...........  Student, North
                                                       Carolina State
                                                       University,
                                                       Raleigh, NC
Sep. 86.........................  June 89...........  Nuclear Research
                                                       Officer, later
                                                       Chief,
                                                       Acquisition
                                                       Support Division,
                                                       Defense Nuclear
                                                       Agency,
                                                       Alexandria, VA,
                                                       later detailed as
                                                       Military Advisor
                                                       for Arms Control,
                                                       Office of the
                                                       Secretary of
                                                       Defense,
                                                       Washington, DC
June 89.........................  June 90...........  Student, U.S.
                                                       Naval Command and
                                                       Staff Course,
                                                       Newport, RI
July 90.........................  Dec. 90...........  Executive Officer,
                                                       2d Battalion, 3d
                                                       Field Artillery,
                                                       3d Armored
                                                       Division, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Dec. 90.........................  June 91...........  Executive Officer,
                                                       Division
                                                       Artillery, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
June 91.........................  May 92............  Executive Officer,
                                                       42d Field
                                                       Artillery
                                                       Brigade, V Corps,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
June 92.........................  June 94...........  Commander, 2d
                                                       Battalion, 8th
                                                       Field Artillery,
                                                       7th Infantry
                                                       Division (Light),
                                                       Fort Ord, CA
                                                       (relocated to
                                                       Fort Lewis, WA)
June 94.........................  June 95...........  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
June 95.........................  June 97...........  Commander,
                                                       Division
                                                       Artillery, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
June 97.........................  Aug. 98...........  Chief of Staff, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug. 98.........................  July 99...........  Assistant Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany to
                                                       include duty as
                                                       Deputy Commanding
                                                       General for
                                                       Ground
                                                       Operations, Task
                                                       Force Hawk,
                                                       Operation Allied
                                                       Force, Albania
July 99.........................  July 01...........  Director, Force
                                                       Management,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans, U.S. Army,
                                                       Washington, DC
Oct. 01.........................  Aug. 04...........  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX and
                                                       Operation Iraqi
                                                       Freedom, Iraq
Aug. 04.........................  Oct. 04...........  Special Assistant
                                                       to Vice Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
Oct. 04.........................  May 06............  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, Office of
                                                       the Joint Chiefs
                                                       of Staff,
                                                       Washington, DC
May 06..........................  Dec. 06...........  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
Dec. 06.........................  Feb. 08...........  Commander, Multi-
                                                       National Corps-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq/Commanding
                                                       General, III
                                                       Corps
Feb. 08.........................  Sep. 08...........  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
Sep. 08.........................  Dec. 09...........  Commander, Multi-
                                                       National Force-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Jan. 10.........................  Sep. 10...........  Commander, U.S.
                                                       Forces-Iraq,
                                                       Operation Iraqi
                                                       Freedom/New Dawn,
                                                       Iraq
Oct. 10.........................  Present...........  Commander, U.S.
                                                       Joint Forces
                                                       Command, Norfolk,
                                                       VA
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignment                    Date                Grade
------------------------------------------------------------------------
Nuclear Research Officer, later     Sep. 86-June 89                    Captain/Major
 Chief, Acquisition Support
 Division, Defense Nuclear
 Agency, Alexandria, VA, later
 detailed as Military Advisor
 for Arms Control, Office of the
 Secretary of Defense,
 Washington, DC.................
Assistant to the Chairman of the     Oct. 04-May 06   Lieutenant General
 Joint Chiefs of Staff, Office
 of the Joint Chiefs of Staff,
 Washington, DC.................
Commander, Multi-National Corps-    Dec. 06-Feb. 08   Lieutenant General
 Iraq, Operation Iraqi Freedom,
 Iraq/Commanding General, III
 Corps..........................
Commander, Multi-National Force-    Sep. 08-Dec. 09             General
 Iraq, Operation Iraqi Freedom,
 Iraq...........................
Commander, U.S. Forces-Iraq,        Jan. 10-Sep. 10             General
 Operation Iraqi Freedom/New
 Dawn, Iraq.....................
Commander, U.S. Joint Forces        Oct. 10-Present             General
 Command, Norfolk, VA...........
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
           Assignment                    Date                Grade
------------------------------------------------------------------------
Executive Officer, Division          Dec. 90-May 91               Major
 Artillery, 3d Armored Division,
 U.S. Army Europe and Seventh
 Army, Operations Desert Shield/
 Storm, Saudi Arabia............
Deputy Commanding General for       Apr. 99-June 99   Brigadier General
 Ground Operations, Task Force
 Hawk, Operation Allied Force,
 Albania........................
Commanding General, 4th Infantry    Apr. 03-Mar. 04       Major General
 Division (Mechanized),
 Operation Iraqi Freedom, Iraq..
Commander, Multi-National Corps-    Dec. 06-Feb. 08   Lieutenant General
 Iraq, Operation Iraqi Freedom,
 Iraq/Commanding General, III
 Corps..........................
Commander, Multi-National Force-    Sep. 08-Dec. 09             General
 Iraq, Operation Iraqi Freedom,
 Iraq...........................
Commander, U.S. Forces-Iraq,        Jan. 10-Sep. 10             General
 Operation Iraqi Freedom/New
 Dawn, Iraq.....................
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal (with two Oak Leaf Clusters)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal
    Legion of Merit (with five Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Combat Action Badge
    Office of the Secretary of Defense Identification Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Raymond T. 
Odierno, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Raymond T. Odierno.

    2. Position to which nominated:
    Chief of Staff, U.S. Army, Washington, DC.

    3. Date of nomination:
    6 June 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    8 September 1954; Rockaway, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Marie Odierno. (Maiden Name: Bukarth).

    7. Names and ages of children:
    Tony Odierno, age 32.
    Kathrine Funk, age 30.
    Mike Odierno, age 24.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army
    Field Artillery Association
    VII Corps Association
    9th Regiment Association
    4th Infantry Division Association
    1st Cavalry Division Association
    American Legion
    Veterans of Foreign Wars
    The Lotos Club (Honorary for 2011-2012)
    Union League Club of New York City (Honorary)
    Union League Club of Chicago (Honorary)
    Union League Club of Philadelphia (Honorary)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Ryan C. Crocker Award
    Abraham Lincoln Award
    USO's Distinguished Service Award
    U.S. News & World Report: America's Best Leaders of 2009
    Romanian National Order For Merit in Rank of Grand Officer, For War
    Naval War College Distinguished Graduate Leadership Award
    Union League Club of NYC Leadership Award
    Morris Hills Regional District Hall of Fame
    National Italian American Foundation (NIAF) Special Achievement 
Award
    Secretary of State Distinguished Service Medal
    No Greater Sacrifice Freedom Award

    When responding to questionnaires in support of previous 
nominations, I was advised that I needed to list only those awards, 
honors, et cetera, that were totally outside of my military service, of 
which I have none (i.e., all of the above awards were given in 
recognition of my service as a senior U.S. military officer). However, 
while preparing this nomination package, I was advised differently that 
this question was meant to include all outside awards and honors, 
regardless of the capacity in which they were presented to me. Based on 
that, all outside awards and honors I have received are now listed 
above.
    Of note, I received the Ryan C. Crocker Award, the Abraham Lincoln 
Award, and the Union League Club of NYC during my current tour of duty 
as Commander of U.S. Joint Forces Command.
    Additionally, in June 2009, while serving as Commander, Multi-
National Forces Iraq, I received the Romanian National Order For Merit 
in Rank of Grand Officer, For War. This foreign decoration has been 
approved by the U.S. Army Human Resources Command as required by Army 
Regulation 600-8-22.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Raymond T. Odierno.
    This 1st day of June, 2011.

    [The nomination of GEN Raymond T. Odierno, USA, was 
reported to the Senate by Chairman Levin on August 2, 2011, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2011.]
                              ----------                              

    [Prepared questions submitted to Gen. William M. Fraser 
III, USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff (JCS). These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. Goldwater-Nichols has transformed the Department of 
Defense (DOD) and the military for the better. I have completed six 
joint assignments and can personally say that now as Commander of Air 
Combat Command (ACC), I have seen first-hand how we continue to 
institutionalize ``jointness'' within our Armed Forces. The reforms of 
Goldwater-Nichols remain an essential part of the DOD fabric and the 
efficient and effective way we employ forces.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I have no suggested changes to Goldwater-Nichols; however, 
if confirmed, I will work closely with Congress, the Secretary of 
Defense, and other senior leaders of our military to continually review 
Goldwater-Nichols and then implement any changes that are needed.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Transportation Command (TRANSCOM)?
    Answer. The mission of the Commander, TRANSCOM, is to provide air, 
land, and sea transportation for DOD, in peace, crisis, and war. The 
Commander relies on his component commands--Air Mobility Command (AMC), 
Military Sealift Command (MSC), and the Military Surface Deployment and 
Distribution Command (SDDC)--to accomplish this mission. The Commander 
also has the Distribution Process Owner (DPO) mission to improve the 
worldwide DOD distribution system. As DPO, the Commander works closely 
with the Defense Logistics Agency (DLA) and the Services to identify 
inefficiencies, develop solutions, and implement improvements 
throughout the end-to-end distribution system. The TRANSCOM team blends 
Active and Reserve Forces, civilian employees, and commercial industry 
partners to provide the mobility forces and assets necessary to respond 
to the full range of military operations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My entire Air Force career has been filled with a variety 
of opportunities and experiences that prepared me for this job. This 
includes operational tours commanding strategic bomber units which 
deployed, employed, and returned home. But also tours as the Air Force 
Vice Chief of Staff, Commander, ACC, and six joint assignments to 
include time as Assistant to the Chairman, JCS.
    As the Assistant to the Chairman, JCS, I traveled the globe with 
the Secretary of State working to build partnerships with foreign 
governments and international and non-governmental organizations. I 
also participated in numerous interagency deputies meetings at the 
National Security Council.
    As the Air Force Vice Chief of Staff, I interacted frequently with 
the Secretary of Defense, Chairman of the JCS, combatant commanders, 
and Service Chiefs on major issues facing our military.
    Finally, in my current capacity as Commander, ACC, I organize, 
train, equip, and maintain combat-ready air forces of more than 1,000 
aircraft and 79,000 Active-Duty and civilian personnel in the Air 
Force's largest command. When mobilized, the Air National Guard and Air 
Force Reserve contribute more than 700 aircraft and 49,000 people to 
ACC. This includes the logistics of preparing airmen to deploy around 
the globe, a complex task I have led for various organizations at 
virtually all Air Force levels. In doing so, I've worked with some of 
the military's finest logisticians and they have taught me well.
    If confirmed, it will be my distinct honor to lead the men and 
women of TRANSCOM in their world-wide mission.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
TRANSCOM?
    Answer. If confirmed, I will personally engage the component 
commands, agencies, and commercial partners to better grasp the scope 
of the issues they face in order to execute this critical duty. I need 
a complete understanding of current DOD and national transportation 
issues, including the challenges facing the commercial transportation 
industry and other national partners upon who we so heavily rely.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, TRANSCOM, to the 
following offices:
    The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has full power and 
authority to act for the Secretary of Defense when serving as his 
designated representative in the Secretary's absence. As such, the 
Commander, TRANSCOM, will report to and through the Deputy Secretary 
when serving in that capacity.
    Question. The Under Secretaries of Defense.
    Answer. Under Secretaries of Defense coordinate and exchange 
information with DOD components, including combatant commands, which 
have collateral or related functions. In practice, this coordination 
and exchange is normally routed through the Chairman of the JCS. If 
confirmed as a combatant commander, I will act accordingly.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor, and is not, according to the law, in the 
chain of command, which runs from the President through the Secretary 
to each combatant commander. The President normally directs 
communications between himself and the Secretary of Defense to the 
combatant commanders via the Chairman of the Joint Chief of Staff. This 
keeps the Chairman fully involved and allows the Chairman to execute 
his other legal responsibilities. A key responsibility of the Chairman 
is to speak for the combatant commanders, especially on operational 
requirements. If confirmed as a Commander, I will keep the Chairman and 
the Secretary of Defense promptly informed on matters for which I would 
be personally accountable.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. Although the Vice Chairman does not fall within the 
combatant command chain of command, he is delegated full power and 
authority to act for the Chairman in the Chairman's absence. If 
confirmed as a combatant commander, I will keep the Chairman informed, 
but if the Vice Chairman is representing the Chairman I will keep him 
informed as I would the Chairman.
    Question. The Director of the Joint Staff.
    Answer. The Director of the Joint Staff assists the Chairman in 
managing the Joint Staff. The Director of the Joint Staff does not fall 
within the combatant commander's chain of command. However, he enables 
important decisions to be made as the combatant commander's staff 
interacts with the Joint Staff. The Director is also a key interface 
with the Office of the Secretary of Defense (OSD) principles and 
interagency leadership, and can assist combatant commanders working 
issues below the Chairman's level.
    Question. The Secretaries of the Military Departments.
    Answer. Close coordination with each Service Secretary is required 
to ensure that there is no infringement upon the lawful 
responsibilities held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs and their respective Reserve components. 
As members of the JCS, the Service Chiefs have a lawful obligation to 
provide military advice. The experience and judgment the Service Chiefs 
provide is an invaluable resource for every combatant commander. If 
confirmed, as Commander, TRANSCOM, I will pursue an open dialogue with 
the Service Chiefs and the Commandant of the U.S. Coast Guard.
    Question. The other combatant commanders.
    Answer. If confirmed, I will maintain open dialogue with the other 
combatant commanders to foster trust and build mutual support. Today's 
security environment requires us to work together to execute U.S. 
national security policy.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the next Commander, TRANSCOM?
    Answer. The next commander's near-term challenge will be 
maintaining today's warfighter support, including redeployment of 
forces, while building and sustaining alternative strategic lines of 
communication in case we lose any of our current primary routes. Long-
term challenges include preparing for a future with a wide range of 
adversaries in an ever-changing, more complex and distributed 
battlespace. Even as the Department prepares for a broad range of 
military crises, we know we will face disaster-related humanitarian 
crises like those that have occurred here at home, as well as in Haiti, 
Japan, and elsewhere. We will need to do this in a more expeditionary, 
yet fiscally constrained environment than ever before.
    The real strength of TRANSCOM--as with any military organization--
is evident in the unique talents and skills of its people. There is no 
more important challenge to a commander than proper stewardship of this 
resource. TRANSCOM's components rely heavily on Reserve elements. 
TRANSCOM includes multi-Service Active Military and large amounts of 
Reserve personnel, government civilians, and contractors. If confirmed, 
I would take an active role in preserving and enhancing the quality and 
expertise of TRANSCOM's personnel resources.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will address these challenges by improving 
our global end-to-end ability to deliver to the point of need in the 
most cost-effective way possible--projecting power where our national 
interests dictate. To do this, I will work with our commercial partners 
and the interagency to expand capacity and continue TRANSCOM efforts 
around the world to secure diplomatic and physical accesses to ground 
and airspace infrastructure for logistics. I will also leverage ongoing 
multi-modal efforts to optimize our operations to support the 
warfighter while improving the performance and efficiency of deployment 
and distribution enterprise. Working closely with CYBERCOM, I will 
ensure our networks remain secure as TRANSCOM's Agile Transportation 
for the 21st century (AT 21) program is brought to operational status. 
This will provide decisionmakers with automated tools to improve the 
end-to-end movement and distribution of forces and sustainment.
    Question. If confirmed, what broad priorities would you establish?
    Answer. If confirmed, TRANSCOM's number one priority will remain to 
support the warfighter with whatever is needed to meet national 
objectives; including deployment, sustainment, rapid maneuver, 
aeromedical evacuation, redeployment, and humanitarian crisis response. 
Always mindful of our resources, I will continue process improvements 
and enterprise synchronization efforts through relationships within the 
Department, around the U.S. Government, and with commercial and 
international partners.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, TRANSCOM?
    Answer. TRANSCOM has done a world-class job supporting the Nation 
and our military forces over the years. Its stock with the warfighter 
has never been higher, earned through deployments, sustainment, 
redeployments, surges, drawdowns, and humanitarian crises like the 
recent calamity in Japan or the earthquake in Haiti. TRANSCOM's human 
enterprise is large, diverse, and global, and there will always be 
things we wish we can do better. The most significant area I would 
focus on would be improving the coordination and synchronization of the 
entire Joint Deployment and Distribution Enterprise (JDDE). The JDDE is 
a vast network of organizations both in and out of DOD that relies 
heavily on commercial partnerships with industry. General McNabb has 
made great strides toward this end, and if confirmed, I will continue 
this work by aligning JDDE authorities and resources commensurate with 
responsibilities, improving our ability to rapidly build strategic 
lines of communication, and institutionalizing best practices learned 
during the last decade.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will reach outside of the command early to 
deepen strategic relationships with my fellow combatant commanders, 
TRANSCOM's components, commercial and international partners, leaders 
within the interagency, and with Members of Congress. As we move 
forward, we will balance our desire for perfection with the art of what 
is possible across a highly diverse enterprise, proceeding smartly 
after considering the options and balancing their costs and benefits.
              experience in managing logistics operations
    Question. Unlike the current Commander of TRANSCOM, you have not 
had extensive experience in managing transportation forces. Much of 
your operational experience has been in bomber units.
    What steps do you believe you need to take to achieve a more 
complete understating of the logistics operations that TRANSCOM and the 
component commands within command manage for DOD?
    Answer. I will work diligently to increase my knowledge of DOD and 
national transportation issues, including the challenges facing the 
commercial transportation industry and other national partners. If 
confirmed, this will include ensuring the TRANSCOM staff works to 
enhance my understanding of logistics operations and the mission of the 
command. I will also personally engage our interagency, 
nongovernmental, commercial, and multi-national partners to learn and 
discuss improvements to our shared logistics priorities.
                       distribution process owner
    Question. In September 2003, following a review of logistics 
operations, the Secretary of Defense designated the Commander, 
TRANSCOM, the Distribution Process Owner (DPO). As the DPO, TRANSCOM 
was tasked to improve the overall efficiency and interoperability of 
distribution related activities--deployment, sustainment, and 
redeployment support during peace and war.
    What is your understanding of TRANSCOM's responsibilities as the 
DPO?
    Answer. The mission of TRANSCOM as the DPO is twofold: first, to 
coordinate and oversee the DOD distribution system to provide 
interoperability, synchronization and alignment of DOD-wide, end-to-end 
distribution; and, second, to develop and implement distribution 
process improvements that enhance the Defense Logistics and Global 
Supply Chain Management System.
    Question. What is your assessment of the progress TRANSCOM has made 
in improving the distribution process?
    Answer. The Command has made significant progress in transforming 
DOD distribution. In collaboration with the COCOMs, Services, DLA, and 
GSA, TRANSCOM has matured the DPO governance structure to use a robust 
performance measurement framework, with common metrics and negotiated 
Time Definite Delivery (TDD) standards which establish expectations, 
identify where the system needs improvement, and prioritize resources 
to making improvements.
    TRANSCOM has made improvements through the DPO Strategic 
Opportunities (DSO) initiatives, which is a collaborative effort 
between TRANSCOM, DLA, GSA, the Services, and COCOMs to move 
sustainment through the distribution network faster and cheaper. For 
fiscal year 2011, these combined initiatives have delivered 
approximately $280 million in savings through July.
    For example, the Strategic Surface Route Plan maximized 40 foot 
container utilization and improved velocity on key routes by 15 
percent. Strategic Air Optimization has improved aircraft cargo 
utilization by 10 percent by employing the full array of airlift 
services, improving Aerial Port pallet build processes and better 
matching airlift capacity with demand. Lastly, by applying lean 
principles to air and surface cargo distribution processes, TRANSCOM 
improved velocity by up to 40 percent across multiple COCOM 
distribution lanes.
    Looking forward, there are always ways to institutionalize process 
improvements and efficiencies through business process reengineering. 
One example is the AT 21 program, which uses industry best-practices 
and government and commercial off-the-shelf optimization and scheduling 
tools to deliver best value, end-to-end distribution and deployment 
solutions. Business process reengineering improves transportation 
planning, forecast accuracy, and on-time delivery of forces and 
sustainment to combatant commanders at a lower cost to the Services.
    Question. Do you believe that the current system needs any changes 
to enhance the ability of TRANSCOM to execute the responsibilities of 
the DPO?
    Answer. No. I believe the Commander of TRANSCOM has the necessary 
authorities to execute his responsibility as the DPO. If confirmed, I 
will continue to build on the hard work and successes achieved to date. 
I will emphasize reducing costs by exploring new areas in the DOD 
supply chain that emphasize a total cost management view, balancing 
efficiency with effectiveness to achieve best value and visibility for 
the warfighters and the taxpayers. I will enhance unity of effort by 
promoting the Joint Deployment Distribution Enterprise and pursuing 
opportunities to remove barriers to reinvesting enterprise cost 
savings.
                           strategic airlift
    Question. The requirement for organic strategic airlift needed to 
support wartime requirements has been set at a level of 32.7 million 
ton-miles per day. This requirement is somewhat smaller than the 
capability of 222 C-17s and 111 C-5s which could carry roughly 35 
million ton-miles per day. With that situation in mind, the Air Force 
intends to retire some portion of the C-5A fleet of aircraft.
    Do you agree with the DOD proposal to eliminate the strategic 
airlift force structure floor of 316 aircraft?
    Answer. Yes. Our national defense strategy requires a viable fleet 
of about 300 organic strategic airlift aircraft, which would provide 
the 32.7 million ton-miles per day peak wartime requirement as 
established in the Mobility Capabilities and Requirements Study-2016 
(MCRS-16). The C-17 will continue to be our premier airlifter, and our 
modernized C-5s are achieving their expected levels of mission 
readiness. However, in order to achieve the correct mix of C-17 and C-5 
aircraft, and take full advantage of our aircrews, maintainers, and 
aerial porters, the Air Force should be given the authority to retire 
the oldest, least capable C-5As. This action would improve aircraft 
availability by removing aircraft with the lowest mission capable rates 
from the fleet and will allow the Air Force to focus their critical 
personnel and resources on the right-sized fleet.
    Question. What is your view of the requirements in peacetime for 
such organic airlift aircraft?
    Answer. The MCRS-16 established the organic strategic airlift 
requirement at 32.7 million ton-miles per day. This requirement 
includes steady-state (peacetime) requirements as well as wartime 
requirements. Proactive management of the Guard and Reserve 
participation and commercial augmentation allows TRANSCOM to respond 
rapidly to sudden changes in the peacetime requirements. If confirmed, 
I will work to ensure our partnership with the Guard, Reserve, and CRAF 
carriers remain strong for our national security.
    Question. Do you believe that the Air Force could, at reasonable 
costs and within reasonable timeframes, reactivate some portion of the 
32 C-5 aircraft that will have been retired under the Air Force's 
current plans, if later we find out that 301 strategic airlift aircraft 
is not sufficient to meet our peacetime and wartime needs?
    Answer. Based on the MCRS-16, the Air Force does not anticipate the 
requirement for strategic airlift to exceed 32.7 million ton-miles per 
day, which equates to about 300 aircraft. If, at some point in the 
future, we determine that the requirement is greater than anticipated, 
TRANSCOM will support the Air Force to find the best solution, which 
might include reactivation of aircraft.
    Question. Does possible closure of Pakistan lines of communication 
supporting Afghanistan operations change your assessment of airlift 
requirements, and if so, how?
    Answer. No. The possible closure of Pakistan lines of communication 
would not change the requirement of about 300 organic strategic airlift 
aircraft. Improving throughput at existing airports and expanding 
capacity in our surface networks which supply Afghanistan has again 
been a centerpiece of our efforts in 2010. The Northern Distribution 
Network (NDN) remains a priority for TRANSCOM. In 2010, two additional 
routes were added through the Baltics and Central Asia and continue to 
improve the processes, facilitating a faster, less costly cargo flow. 
In addition to the NDN improvements, capacity was added at intermodal 
Persian Gulf locations. Realizing that more capacity was needed to 
support the surge of forces into Afghanistan and the movement of 
thousands of Mine Resistant Ambush Protected (MRAP) Vehicles, TRANSCOM 
worked closely with CENTCOM and the Department of State to secure 
access to additional airfields and seaports in the Persian Gulf. Using 
a concept called multi-modal operations, large volumes of cargo and 
thousands of vehicles were moved by sea to locations in closer 
proximity to the CENTCOM area of operations, by truck from the seaports 
to the nearby airfields and then by air to Afghanistan.
                     northern distribution network
    Question. The Defense Department has plans to expand its use of air 
and ground supply routes along the NDN to deliver equipment and 
supplies to Afghanistan, in part to reduce the U.S. reliance on supply 
routes through Pakistan. Yet significant portions of the NDN go through 
certain countries, particularly in Central Asia, that have extremely 
poor track records on human rights and corruption.
    What do you see as the major challenges to expanding the use of the 
NDN to deliver supplies to Afghanistan?
    Answer. The primary challenges we face with expanding the NDN are 
access and types of cargo allowed to transit. Receiving necessary and 
timely transit permissions from partner nations, particularly those in 
Central Asia, has been a challenge. Additionally, the current transit 
agreements only allow non-lethal cargo to transit the NDN. This 
limiting factor leads to heavier reliance on the Pakistan ground lines 
of communication for some military equipment and airlift for delivery 
of lethal and critical or sensitive cargo.
    Question. To what extent, if any, should concerns about the human 
rights and corruption records of authoritarian regimes, particularly in 
Central Asia, be taken into account in negotiating expanded access to 
supply routes along the NDN?
    Answer. It is in the national interests of the United States to 
advance and protect fundamental human rights, and to promote democratic 
institutions that are responsive and accountable to its citizens. These 
strategic priorities should be taken into account and balanced against 
other strategic priorities in our dealings with foreign governments. We 
need to work with the whole-of-government to take a holistic approach 
to our bilateral relationships, and it is in this context that 
negotiations to expand needed NDN supply routes should be considered.
                           strategic sealift
    Question. Strategic sealift has always played a significant role in 
providing support to our forces overseas. Typically, we have seen 
strategic sealift delivering 95 percent of the equipment transported to 
overseas contingencies.
    Are there any initiatives that you believe are necessary, if 
confirmed, in the area of strategic sealift?
    Answer. If confirmed, I will work with the U.S. Navy and our 
commercial sealift partners to develop initiatives such as Joint 
Seabasing and Joint High Speed Vessels, which may play a role in 
enhancing strategic sealift. Strategic sealift continues to play a 
vital role in the transportation of equipment and supplies for DOD. The 
MSC, the SDDC, and U.S. Maritime Administration, working in partnership 
with the U.S. maritime industry, have done a superb job at meeting the 
performance requirements of strategic sealift as we execute Operations 
Enduring Freedom and New Dawn and support other military missions 
around the globe.
                       maritime security program
    Question. Through programs like the Maritime Security Program 
(MSP), the Voluntary Intermodal Sealift Agreement (VISA), and the 
Voluntary Tanker Agreement (VTA) administered by the Maritime 
Administration, DOD has maintained access to U.S. commercial 
capabilities and transportation networks while ensuring the continued 
viability of both the U.S.-flag fleet and the pool of citizen mariners 
who man those vessels.
    What is your view of the importance of these Maritime 
Administration programs?
    Answer. The MSP, VISA, and VTA are all vital components of the 
overall strategic sealift capability required to meet the Nation's 
strategic sealift requirements. The MSP maintains a modern U.S. flag 
fleet providing military access to vessels and vessel capacity, as well 
as a total global, intermodal transportation network. This network 
includes not only vessels, but logistics management services, 
infrastructure, terminals facilities and, perhaps most importantly, 
U.S. citizen merchant mariners to crew the government owned/controlled 
and commercial fleets.
    Question. What changes in these programs, if any, do you believe 
are appropriate and would make them more effective or more efficient in 
supporting DOD transportation requirements?
    Answer. TRANSCOM is coordinating with the Maritime Administration 
on proposed enhancements to the MSP that would allow an opportunity for 
cost efficient recapitalization of our organic surge sealift fleet. As 
force drawdowns continue in Operations New Dawn and Enduring Freedom, 
so will the deployment and sustainment cargoes which have become such a 
valuable piece of our commercial partners' business plans. If 
confirmed, I will work to mold these programs to respond to the ever 
changing global strategic and economic environment maintaining our U.S. 
flag fleet, our precious pool of U.S. citizen merchant mariners, and 
the industrial base which supports them.
                        civil reserve air fleet
    Question. With the expansion of military operations since September 
11, 2001, the Air Force's mobility requirements have increased. The Air 
Force has in the past, and may very well in the future, rely heavily on 
the Civil Reserve Air Fleet (CRAF) to supplement its organic airlift.
    Do the changes in the commercial airline industry, characterized by 
bankruptcies and a move toward smaller and shorter-range aircraft, 
bring into question the future viability of the CRAF system?
    Answer. Several recent studies indicate that the airline industry 
will continue to provide sufficient numbers of large, long-range 
aircraft to meet our defense needs. In this past year, through 
discussions with our commercial industry partners, TRANSCOM has made 
the most sweeping changes to the CRAF program in 15 years. These 
changes will result in a stronger, more viable program and address 
congressional mandates to improve predictability of DOD commercial 
requirements and incentivize carriers to use modern aircraft.
    To ensure the CRAF partnership remains strong, TRANSCOM created the 
Executive Working Group (EWG), modeled after a similar venue with our 
sealift partners. The CRAF EWG brings together TRANSCOM and AMC leaders 
with Chief Executive Officers, Presidents, and other representatives of 
the commercial airline industry to discuss issues with the CRAF 
program. The CRAF EWG will continue to meet on a regular basis to 
discuss additional changes to this vital program. If confirmed, I will 
continue to work with our CRAF partners to ensure the business 
relationships are solid and the contracts support DOD requirements.
    Question. How much should we be relying on CRAF aircraft to meet 
our peacetime and wartime airlift requirements?
    Answer. The CRAF is a critical component in our ability to rapidly 
deploy forces and equipment. We must balance and integrate all the 
tools of American power, to include our industrial capacity and 
partners, to succeed in ensuring our national security.
    The CRAF is intended to augment wartime capability to carry 
passengers and bulk air cargo, which it is very efficient in doing, 
allowing the organic fleet to focus on missions for which they are 
better suited. It is a win-win for our Nation.
                       joint command and control
    Question. Initial reporting from recent military operations 
indicate joint command and control capabilities have greatly improved 
in recent years.
    What is your assessment of the performance of TRANSCOM's global and 
theater command and control (C2) systems?
    Answer. TRANSCOM's global C2 systems work well, as evidenced by 
their timely support of warfighter requirements. If confirmed, I will 
work to improve TRANSCOM's C2 systems to focus on enhancing situational 
awareness, rapid decisionmaking, and end-to-end distribution 
optimization.
    Question. What interoperability challenges remain between Service-
to-Service and Service-to-joint C2 systems?
    Answer. There is a need to improve information exchanges across the 
various classification boundaries and between Services and combatant 
commanders, while simultaneously improving information sharing with our 
commercial and coalition partners. Information sharing is crucial to 
successful and safe mission accomplishment, but there are security 
risks that require constant attention.
    To enhance Service-to-joint C2 systems, TRANSCOM is working to 
identify key processes and information technology solutions that best 
integrate Service unique or stand-alone applications to enhance the 
delivery of timely, accurate, and complete data. TRANSCOM is teaming 
with commercial partners and individual Services to ensure these 
interoperability risks are addressed. If confirmed, I will continue to 
improve TRANSCOM's superior service to their customers, and most 
importantly, our warfighters.
    Question. What role should the TRANSCOM Commander play in ensuring 
the development of reliable, interoperable, and agile C2 systems?
    Answer. As DPO, the TRANSCOM Commander plays a preeminent role in 
the integration of C2 systems across boundaries and domains from one 
end of the distribution chain to the other. Commercial partners, DLA, 
Joint Staff, combatant commanders, Services, and coalition partners all 
have unique logistics systems that serve their mission.
    If confirmed, I will work with distribution partners and customers 
to make C2 improvements which will allow protected and unconstrained 
sharing of information across these domains. This is a clear challenge, 
but necessary, if we are to maximize the combat multiplying effects of 
logistics for the warfighters.
                   cyberspace operations and security
    Question. TRANSCOM must communicate over the unclassified Internet 
with many private-sector entities that are central to DOD's force 
generation and deployment operations--in the transportation and 
shipping industries in particular. Much of the rest of the critical 
communications and operations of DOD can be conducted over the 
classified DOD internet service, which is not connected to the public 
Internet and is therefore much more protected against eavesdropping and 
disruption by computer network attacks. General McNabb has been quoted 
as stating that TRANSCOM is the most attacked command in the 
Department.
    What do you believe are the critical needs of TRANSCOM for cyber 
security?
    Answer. TRANSCOM not only moves cargo and passengers, but vast 
amounts of information between our military and commercial partners. 
Command and control systems must get the right information to the right 
people at the right time, while protecting it from exploitation and 
attack. If confirmed, I will work to protect the command's information 
from new technologies that exploit and attack, reduce costs by 
eliminating duplication of data, systems, or processes, and set data 
standards across the enterprise to build trust, security, and 
efficiency.
    Question. What plans do you have for addressing these critical 
needs?
    Answer. TRANSCOM will need to continue addressing these issues on 
multiple fronts. Keeping command and control systems secure and 
protecting them from attack is a huge challenge. TRANSCOM has been 
partnering with CYBERCOM, industry, and academia to introduce 
innovative technologies and methodologies to protect essential systems 
and information. To reduce costs and boost security, the command is 
implementing architectures to leverage new technologies, eliminate 
duplication of data, and better protect its command and control 
systems. To improve the accuracy and trust of our information, TRANSCOM 
is partnering with military and commercial partners to define standards 
for the processing and handling of data. Implementation of these 
standards streamlines information flow, provides better transparency to 
authorized users, and leverages new technologies. The results are 
trusted and timely information supporting a more responsive 
transportation enterprise. If confirmed, I will focus on cyber security 
by working with our components, the Department, and industry experts to 
develop innovative solutions that maintain our freedom of operations 
through data security.
    Question. Is DOD taking adequate steps to address your special 
needs?
    Answer. Yes. TRANSCOM is engaged with the Principal Deputy Under 
Secretary of Defense for Policy, DOD Chief Information Officer, U.S. 
Cyber Command, the Cyberspace Integration Group, and COCOM Senior 
Warfighter Forums in a concerted effort to enhance cyberspace 
operations security posture and countering cyber threats to our 
enterprise networks and information.
                         aeromedical evacuation
    Question. Following the cancellation of the C-9A aircraft for 
medical evacuation in 2003, the AMC adopted a new operational approach 
to its worldwide mission of aeromedical evacuation. The concept employs 
other airlift, such as cargo and aerial refueling aircraft, for the air 
evacuation of wounded and ill patients.
    Based on lessons learned in OIF, OEF, and Operation New Dawn, are 
you satisfied that the current model ensures the highest quality of 
aeromedical evacuation support for our severely injured or ill 
personnel?
    Answer. I am extremely satisfied with the high quality of 
aeromedical evacuation support TRANSCOM provides for our severely 
injured or ill personnel. The current approach using designated versus 
dedicated aircraft has transformed our global patient movement 
capability. The transition from the C-9A to cargo and aerial refueling 
aircraft provided access to a greater variety of airframes globally 
while offsetting the cost of maintaining a dedicated air fleet solely 
for aeromedical evacuation. This also provides greater flexibility to 
respond to urgent and priority patient needs with In-system Select 
missions that can land at airfields not accessible by a C-9A. Ten years 
of experience and lessons learned has led to significant advancements 
in mission operations, technology, and medical capability. Patient 
support pallets and specially trained critical care teams are just two 
examples of enhancements that made cargo and aerial refueling aircraft 
suitable for aeromedical evacuation. This has allowed safe movement of 
severely injured and ill patients more effectively through the enroute 
care system. In addition, the Civilian Reserve Air Fleet (CRAF) is able 
to provide additional aeromedical evacuation capability if patient 
movement requirements exceed current system capacity. If confirmed, I 
will continue to ensure the highest quality of aeromedical evacuation 
support for our severely injured or ill personnel. I believe this is a 
critical pillar to conduct combat operations and to sustaining an 
exceptional All-Volunteer Force.
    Question. If confirmed, how would you continuously evaluate the 
quality standards of aeromedical evacuation?
    Answer. If confirmed, I would support an integrated approach to 
evaluate the quality standards of aeromedical evacuation. This includes 
expanding the use of aeromedical evacuation data from the Patient 
Movement Quality Reporting System and the TRANSCOM Regulating and 
Command and Control Evacuation System to pinpoint opportunities to 
optimize patient care. Integrating other existing patient safety 
databases used by the Services, COCOMs, USTC/AMC aeromedical evacuation 
patient safety monitors, the Critical Care Air Transport Performance 
Improvement Team, and the Joint Theatre Trauma System would further 
enhance patient safety and quality standards. In addition, I would 
support development and deployment of a user-friendly electronic 
medical record that captures patient information and care data all the 
way from point of injury, through care in the air, to the medical 
treatment facility or rehabilitation facility.
                        research and development
    Question. TRANSCOM's budget includes funding for a research and 
development (R&D) activity designed to allow for examination and 
improvement of the entire supply chain as part of TRANSCOM's role as 
DPO.
    What are the major capability gaps related to TRANSCOM's mission 
that need to be addressed through R&D efforts?
    Answer. Increased demands on TRANSCOM's global mission and the 
ability to execute those responsibilities in an ever-increasing 
contested cyberspace environment represent challenges that require 
innovative solutions to maintain critical communication with the 
distribution community including our commercial partners. Additionally, 
new technologies may increase the efficiency and effectiveness of our 
distribution options. If confirmed, TRANSCOM's R&D investment focus 
will explore technologies that improve efficiencies and lower the 
operating cost of our Nation's joint logistics enterprise. Some 
examples include:

        <bullet> Point of Need Delivery--improve delivery speed, 
        volume, and accuracy of airdropped cargo, as well as leverage 
        unmanned and hybrid airlift capabilities in operationally 
        relevant conditions and synchronize strategic and theater 
        delivery capabilities to meet increasingly dynamic customer 
        needs;
        <bullet> Joint Sea Basing--capability to safely and efficiently 
        move vehicles, containers, and cargo in a sea base environment;
        <bullet> Command and Control (C2)/Decision Support Tools--
        improve visibility, decisionmaking, and collaboration within 
        DOD's logistics chain;
        <bullet> Ability to Operate in All Environments--improve 
        expeditionary operations for environments that feature anti-
        access, austere conditions, adverse weather, and contested 
        cyberspace; and
        <bullet> Fossil Fuel Dependency Reduction--explore energy 
        alternatives to enhance our ability to employ our Nation's 
        airlift and aerial refueling capacity and reduce cost relative 
        to warfighter requirements.

    Question. What unique processes and technologies do you feel 
TRANSCOM needs to develop through its own program and investments?
    Answer. TRANSCOM is investing in process reengineering as part of 
the AT 21 program to institutionalize improvement opportunities that 
are repeatable and reliable. Examples include the Strategic Surface 
Route Plan, and Strategic Air Optimization, which use demand, capacity, 
and other factors to maximize utilization of containers and pallets 
while maintaining desired service levels. In addition, TRANSCOM 
continues to enhance warfighter support with technologies ranging from 
precision airdrop to exploring the potential of hybrid airships. If 
confirmed, I will examine the entire R&D portfolio to find innovative 
solutions to enhance enterprise support to the warfighter.
    Question. How will you work with other R&D organizations to ensure 
that TRANSCOM's current and future capability gaps are addressed?
    Answer. Nearly 75 percent of TRANSCOM's RDT&E projects are 
collaboratively funded efforts that place proven capabilities in the 
hands of the warfighter within 2 to 3 years. If confirmed, I will work, 
in partnership with the Services, DLA, the combatant commands, OSD, and 
the Joint Staff, to identify, validate, and recommend RDT&E projects to 
explore emerging technologies that close validated capability gaps.
                         technology priorities
    Question. Serving the needs of the combatant commanders both in the 
near-term and in the future is one of the key goals of the Department's 
science and technology executives, who list outreach to commanders as 
an activity of continued focus.
    What do you see as the most challenging technological needs or 
capability gaps facing TRANSCOM in its mission to provide air, land, 
and sea transportation to DOD?
    Answer. Of utmost concern is the need to improve the Department's 
ability to provide timely and precise delivery of sustainment to our 
warfighters as well as humanitarian aid and relief anywhere and anytime 
and to do so in a fiscally responsible manner. Additionally, we need to 
explore information security and assurance as well as new cyber 
technologies to ensure greater efficiency and mission accomplishment. 
Mitigating fossil fuel dependency also remains a major focus area.
    Question. What would you do, if confirmed, to make your technology 
requirements known to the department's science and technology community 
to ensure the availability of needed equipment and capabilities in the 
long-term?
    Answer. If confirmed, I will focus on enhancing Department/industry 
partnerships to rapidly develop and field proven technologies. Within 
DOD and the interagency, I will work through the established processes 
to ensure our support to the warfighter continues.
                         technology transition
    Question. TRANSCOM has been active in the Joint Concept Technology 
Development (JCTD) process.
    What are your views on the JCTD process as a means to spiral 
emerging technologies into use to confront changing threats and to meet 
warfighter needs?
    Answer. The Department's JCTD program is an extremely effective 
tool that COCOMs can use to insert emerging technologies into the 
warfight. It provides the joint community an agile means to deliver 
mature technology addressing warfighter gaps. Building on TRANSCOM's 
past record of success, if confirmed, I will strongly advocate for 
technologies that rapidly enhance warfighter support and success.
    Question. What steps will you take, if confirmed, to enhance the 
effectiveness of technology transition efforts within your command and 
in cooperation with other Services and defense agencies?
    Answer. If confirmed, I will continue to apply the Command's RDT&E 
investments, in partnership with other COCOMs, Services, defense 
agencies, academia, and industry to advance our Nation's warfighting 
capabilities. I will leverage the Department's many programs (JCTD, 
Coalition Warfare Program, Joint Test & Evaluation, Small Business 
Innovative Research, et cetera) to develop and field, in collaboration 
with our government, coalition, industry, and academic partners, the 
rapid development and transition of proven technologies. Specifically, 
I will include the Services, COCOMs, JDDE partners, OSD, and the Joint 
Staff in the JCTD and RDT&E project selection process to ensure buy-in 
and avoid unnecessary duplication of effort. Finally, I will ensure 
that all projects have a program of record identified for transition 
and emphasize rapid fielding from day one.
                         deployment challenges
    Question. Multiple studies by TRANSCOM and the Army, and direct 
experience in Afghanistan and elsewhere, demonstrate that the airlift 
strategy and airlift platforms developed for the Cold War confrontation 
in Central Europe are not ideal to support operations in third-world 
regions. Unlike Europe, most of the world has few airfields with long 
runways, and there are fewer still that have parking space for more 
than a couple of cargo aircraft to unload at one time. This ``Maximum-
on-Ground'' or MOG metric is the critical measure of throughput 
capacity at airfields. The few airfields with MOG greater than 2 are 
scarce and are located within major urban areas, usually far from where 
ground forces would be employed. Traditional fixed-wing airlifters--
even flexible ones like the C-17--cannot be effectively employed in 
large numbers to deploy and support ground forces in these regions 
because of these infrastructure limitations.
    TRANSCOM is now completing a Future Deployment and Distribution 
Assessment that documents this capability gap and evaluates 
alternatives to traditional fixed-wing transports. The alternatives 
that scored very high are heavy-lift airships and heavy vertical take-
off and landing (VTOL) rotorcraft. These alternatives would deploy more 
forces faster, save lots of fuel, and increase sustainment. Because 
they deliver troops and supplies directly to the point of need, they 
reduce the number of trucks on the road that are vulnerable to IEDs, as 
well as the length of supply lines. In other words, they would also 
reduce the vulnerability of our supply lines and save lives.
    The Air Force and the Army are conducting an Analysis of 
Alternatives (AOA) for a replacement of the C-130. We understand that 
the Army favors a heavy lift second generation tilt-rotor that would 
provide VTOL capabilities.
    Do you support development of such a platform?
    Answer. The AOA you refer to is the Joint Future Theater Lift 
Technology Study (JFTL TS), and it is due to be completed within the 
next year. The AOA is ongoing, and it is unclear what platform or 
platforms will provide the best warfighter value for DOD. The intent of 
the JFTL TS is not to replace the C-130 but to supplement the C-17, C-
130, and C-27 capabilities to deliver medium weight combat vehicles 
into very austere environments. The JFTL TS is assessing the overall 
value and cost of a cadre of fixed wing aircraft, hybrid airships, and 
tilt-rotor platforms as to how they might perform in emerging, future 
intra-theater airlift missions. Upon completion of the AOA, OSD in 
concert with the Air Force and the joint partners will develop 
conclusions and recommendations.
    Question. TRANSCOM has apparently assessed the airships in this 
review to be much more mature technology. This assessment also agrees 
with other independent assessments.
    Do you think that DOD should develop and produce such platforms, or 
do you think the government could buy or lease them from the private 
sector to acquire a capability sooner?
    Answer. At this time, a hybrid airship configured for heavy cargo, 
equivalent to legacy lift platforms, does not exist. Industry has 
developed an ISR hybrid airship, which may serve as the basis for 
further expansion as a cargo carrying platform. Initial flight testing 
of this platform is scheduled to begin in early 2012. I believe the DOD 
should partner with industry as we go forward advancing this 
transportation modal option.
    Question. In natural disasters such as the Haiti earthquake or 
Hurricane Katrina, the airfields, roads, and bridges that are required 
to fly in and distribute relief forces and supplies were destroyed by 
the disaster. Fixed-wing transports that need functioning airfields are 
not much use, but vertical lift aircraft or airships have the potential 
for continuing effective operations.
    Do you believe that the TRANSCOM analyses have adequately factored 
disaster relief into their assessments?
    Answer. TRANSCOM is conducting studies and analyses to ensure we 
can respond across the full range of military activities. They are 
working with industry partners through the use of Cooperative Research 
and Development Agreements with specific focus on humanitarian 
assistance and disaster relief and contingency sustainment 
(Afghanistan) operations. These look to determine the feasibility of 
using hybrid airships as a modal option for the transportation 
distribution system. In order to continue or increase TRANSCOM's 
capability to support the warfighter and nations in need with effective 
and efficient distribution, this team is engaged to ensure situations 
such as Haiti's earthquake and other natural disasters are analyzed for 
the use of the hybrid airship.
                    defense personal property system
    Question. For over 10 years, TRANSCOM and its subordinate command, 
Surface Deployment and Distribution Command, have been working to 
improve the process of moving servicemembers' household goods and 
gaining the support of the transportation provider industry for needed 
changes. Implementation of the new system--Defense Personal Property 
System (DPS)--uses a ``best value'' approach to contracting with movers 
that focuses on quality of performance, web-based scheduling and 
tracking of shipments, servicemember involvement throughout the moving 
process, and a claims system that provides full replacement value for 
damaged household goods. Successful implementation of this system 
depends on replacement of the legacy Transportation Operational 
Personal Property Standard System (TOPS) with the web-based DPS.
    What do you view as the most significant challenges that remain in 
continuing to implement DPS?
    Answer. The DPS is now booking over 90 percent of all household 
goods shipments, with Active Duty, Reserve, and civilian members taking 
advantage of on-line self-counseling. Awards to move their personal 
property are made on a best-value basis to transportation service 
providers (TSPs). Based on the 17 Mar 11 DPS Cost Savings Analysis, DPS 
has saved approximately $153 million in fiscal year 2011 personal 
property movement costs through the use of more competitive rates and 
best-value scoring. Although the program has come a long way, some 
final implementation steps remain. TRANSCOM is currently incorporating 
the last remaining functionality, such as Domestic Small Shipments, 
Intra-Country Moves, and Non-Temporary Storage, into the DPS software 
while continuing to enhance the overall system performance and the user 
experience.
    Question. What is your assessment of the success of DPS in 
achieving the requirement for full replacement value for damaged or 
missing household goods claims?
    Answer. Full replacement value (FRV) is implemented across the 
Services, and is now in place for all modes of shipments in support of 
the Defense Personal Property Program (DP3). If confirmed, I will 
ensure process improvements are in place so claims submission 
procedures become more straightforward for the DPS Claims module user.
    Question. What is your understanding under DPS of the percentage of 
valid personal claims for damage or loss of household goods that is 
currently paid for by DOD and the percentage that is paid for by the 
movers who caused the damage?
    Answer. Based on metrics provided by the Military Claims Offices 
(MCOs), the percentage of claims paid by the DOD is approximately 52 
percent. However, when a MCO pays a claim to a servicemember, the next 
step in the MCO process is to initiate collection of those funds from 
the mover who caused the damage.
    Question. What is your assessment of the adequacy of the response 
rate on customer satisfaction surveys as a method for identifying best 
and worst performers?
    Answer. Customer satisfaction survey response rates have risen to 
27 percent. It is clear the survey response rates are key to ensuring 
only quality service providers participate in the program. If 
confirmed, I will work closely with the Service Headquarters to 
increase the response rate.
    Question. If confirmed, what role would you play in ensuring that 
DPS is fully funded and implemented and will you make every effort to 
ensure this program is successful in meeting its goals?
    Answer. If confirmed, I will leverage DPS to continue to improve 
our business processes for household goods and services. I will work to 
ensure the DPS program successfully meets its goals and full funding is 
obtained. OSD and the Services have committed to fully fund the DPS 
program. In May of this year, the Office of the Secretary of Defense, 
Capability Assessment and Program Evaluation office validated the 
fiscal years 2012 to 2017 funding required for DPS development and 
sustainment. In addition, OSD, Joint Staff, and the Services have 
indicated their support to fund DPS.
        air force ability to respond to worldwide contingencies
    Question. What impact, if any, do you see on the Air Force's 
ability to respond to worldwide contingencies as a consequence of the 
demands of current operations in Iraq and Afghanistan?
    Answer. The Air Force has the right people, skills, and equipment 
to support operations in Iraq and Afghanistan as a full partner. The 
continued operations tempo does however take its toll. Continued 
deployments place stress upon our people and their families. Our 
equipment is also being stressed and aged at an accelerated rate. 
Despite this, the Air Force is proud to be serving alongside our sister 
Services in protecting the future of this great country.
    Question. How much additional risk has the United States assumed in 
this regard?
    Answer. Our forces engaged in combat today are ready to perform 
their missions, but many Air Force capabilities require modernization 
to help us shape and respond to a very challenging future. We must 
retain an enduring technological edge that flows from our unmatched 
ability to research, develop, operate, and sustain the world's premier 
Air Force. The Air Force remains committed to recruiting and retaining 
the highest caliber airmen and sustaining the quality of service for 
them and their families, and we must continue to ensure we are able to 
set the conditions for America's success against emerging threats in an 
uncertain future.
                          joint cargo aircraft
    Question. Subsequent to the Air Force assuming full responsibility 
for the direct support airlift mission capability for the Army, the Air 
Force decided that a total program of 38 C-27Js would be sufficient to 
meet their responsibility for providing that capability. The Air Force 
based this conclusion on: (1) an analysis of the Army's demand for the 
direct support mission; (2) a Mobility Capability Requirements Study 
conclusion that the programmed Air Force fleet of 401 C-130 aircraft 
exceeded maximum demand for intra-theater airlift in any wartime 
scenario by 66 C-130 aircraft; and (3) an analysis that showed that a 
supply of 38 C-27J aircraft, along with 20 C-130 aircraft diverted from 
an intra-theater airlift mission to the Army direct support mission, 
would meet the Army's needs.
    Should the Air Force consider buying more C-27Js specifically for 
meeting the Army direct support mission requirements, rather than 
recapitalizing C-130 inventory that may be excess to intra-theater 
airlift requirements, since the cost per flying hour for a C-27J should 
be much less expensive than that for a C-130J aircraft?
    Answer. No. The Air Force Intra-Theater Airlift Force Mix Analysis 
accomplished by RAND in 2008 demonstrated the C-130J as being 
consistently most cost-effective in accomplishing the spectrum of 
theater lift missions. C-130s and C-27Js have comparable short-field 
access and soft-field performance. The C-27J has a niche for small 
loads (3 pallets or fewer) and is well-suited to perform that role with 
the current plan to acquire 38 aircraft. The continued recapitalization 
of the C-130 fleet offers the warfighter greater and more cost-
effective capability and flexibility.
    Question. The Defense Department also has requirements for 
supporting domestic missions, such as those from the Department of 
Homeland Security. Absent other information, it would appear to the 
committee that the Department merely assumes that it can muster the 
appropriate support for domestic missions from within those forces that 
are derived from warfighting requirements. Just as it has turned out 
that the current conflicts in Afghanistan and Iraq were not exactly the 
``lesser included contingencies'' that previous defense planning had 
assumed, it is altogether possible that the same would be true for 
meeting whatever domestic demands may be placed on the Department.
    How would you propose to ensure that TRANSCOM forces are able to 
meet domestic mission requirements?
    Answer. MCRS-16 concluded intra-theater airlift was adequate in 
supporting each of the three cases studied. Each case contained not 
only a major contingency campaign but also included worldwide 
commitments, training, and Homeland defense scenarios.
                    space available travel policies
    Question. DOD, in consultation with TRANSCOM, submitted a report to 
Congress on Space Available Travel for Certain Disabled Veterans and 
Gray-Area Retirees in December 2007. The report concluded that 
increases in space available eligibility would significantly impact 
DOD's ability to accomplish effectively the airlift mission and 
negatively affect support to Active Duty military space-available 
travelers. Additionally, the report concluded that adding to the 
eligibility pool would increase support costs and displace the current 
policy that mandates that space-A travel not incur additional costs to 
DOD.
    Do you consider the conclusions and recommendations of the December 
2007 report to still be valid?
    Answer. I believe the conclusions and recommendations remain valid. 
The potential for expanding the eligibility pool cited in the report by 
nearly 2 million individuals (a 27 percent increase) cannot be 
accommodated without having a detrimental impact to our Active Duty 
members. The space-A travel system's primary objective is to enhance 
the morale and welfare of our Active-Duty Force.
    Question. What are the constraints in today's operational 
environment of expanding the categories of individuals eligible for 
space available travel?
    Answer. Given current operational requirements, I do not believe 
DOD has the global ability to support this expansion. The expansion 
would increase support costs for security identification, 
administration, processing, baggage handling, safety equipment, 
training, personnel, and facilities, and would undermine the current 
policy that execution of the space-A travel is at no cost to DOD. An 
expansion places additional stress on heavily tasked DOD aircrews and 
support personnel because of wartime commitments.
    Question. What recommendations, if any, do you have regarding 
changes to the existing policies controlling space available travel 
eligibility?
    Answer. Due to the current operational requirements, I do not see 
space-A expansion as advisable.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, TRANSCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                     northern distribution network
    1. Senator Levin. General Fraser, a major concern has been our 
significant reliance on supply routes through Pakistan which have been 
subject to attack by militant extremists. Currently, nearly 40 percent 
of surface cargo to Afghanistan arrives from the north, and military 
planners reportedly intend to expand to 75 percent the share of surface 
cargo coming into Afghanistan along the northern network. While the 
growth of the Northern Distribution Network (NDN) has reduced concerns 
about vulnerable supply lines through Pakistan, it has also raised 
concerns about U.S. dependence on authoritarian regimes in Central Asia 
with high levels of corruption. Given the levels of corruption in a 
number of Central Asian countries, what steps has U.S. Transportation 
Command (TRANSCOM) taken to ensure that its contractors and their 
subcontractors operate in a manner that safeguards against corrupt 
practices that result in U.S. tax dollars being siphoned off?
    General Fraser. There is a continual dialogue between TRANSCOM and 
our commercial carriers who transport cargo into Afghanistan as part of 
the Universal Services Contract (USC). By using our commercial 
carriers, who have established commercial networks and subcontracts 
throughout the NDN, the rates for TRANSCOM transportation are 
competitive and considered reasonable in comparison to commercial 
tariffs in those countries. With our rates being comparable to both 
commercial and NATO cargo rates, we believe the opportunity for funds 
being siphoned off through corruption is minimal. The USCs contain a 
clause requiring contractors to have a business code of ethics and 
conduct, along with all the required U.S. Central Command (CENTCOM) 
Contracting Command clauses. Additionally, the prime contractors have a 
vested interest in ensuring all business conducted in these countries 
is above board and free of any corruption. They have international 
brands with untarnished reputations--reputations they want to maintain. 
We work closely with our prime contractor and by maintaining continuous 
communications, we remain alert to any potential corruption. In 
addition, our embassies have provided guidance to local carriers 
regarding the legitimacy of transit fees charged by Central Asian 
governments to ensure all charges are valid.

    2. Senator Levin. General Fraser, in Kyrgyzstan, questions have 
arisen regarding payments under a contract to provide fuel to the Manas 
Transit Center that may have been diverted to relatives of two 
presidents. What is the status of any Department of Defense (DOD) 
investigations into allegations of possible corruption in connection 
with fuel contracts relating to the Manas Transit Center?
    General Fraser. The Office of the Secretary of Defense 
(OSD)(Policy) and Defense Logistics Agency-Energy are currently engaged 
with the Government of Kyrgyzstan concerning the fuel contract to 
support Manas Transit Center, and the contractual process continues to 
move gradually forward.
    Regarding allegations of possible corruption, the December 2010 
congressional report ``Mystery at Manas'' was critical of Departments 
of State and Defense oversight of fuel contracts in Central Asia due to 
the high risk of corruption in the region and concern that negative 
public perception may be detrimental to U.S. efforts. However, the 
House Subcommittee on National Security and Foreign Affairs uncovered 
no credible evidence that Mina Corporation and Red Star Enterprises 
were linked to corrupt activities and we are not aware of any further 
DOD investigations at this time.
    Manas Transit Center continues to be a critical hub for strategic 
airflow as TRANSCOM provides continuous support to CENTCOM operations 
in Afghanistan.
                                 ______
                                 
          Question Submitted by Senator Kirsten E. Gillibrand
                    stewart air national guard base
    3. Senator Gillibrand. General Fraser, as I'm sure you are aware, 
Stewart Air National Guard Base (ANGB), NY, is the proud home of the 
105th Airlift Wing. Rich in history and tradition, Stewart ANGB employs 
more than 660 full-time and part-time military members and some 1,700 
traditional guardsmen.
    Earlier this year I was pleased with the decision by the Air Force 
to replace the 12 retiring C-5A Galaxy aircraft with the C-17. However, 
I was surprised to learn only eight C-17 are going to be based at 
Stewart ANGB. I've asked the Air Force for an explanation and received 
a response indicating they were currently researching the issue and 
promised me a more detailed answer upon completion of their review.
    I understand the 8 C-17s destined for Stewart ANGB are coming from 
Charleston Air Force Base (AFB), SC, and McChord AFB, WA, both of which 
already have in excess of 50 aircraft. With another 13 C-17s still to 
be delivered to the Air Force, I believe basing an additional 8 C-17s 
(for a total of 16) with the 105th Airlift Wing will not only maximize 
the capability of Stewart ANGB and its highly trained and dedicated 
personnel, it will increase the geographic distribution of this 
important national asset, and increase available ramp space at 
Charleston and McChord AFBs, relieving any potential overcrowding. With 
the retirement of the C-5As, Stewart ANGB has the infrastructure, 
personnel, and community desire to accommodate more than eight C-17s.
    While I was unable to attend your confirmation hearing due to a 
conflict in my schedule, I have reviewed your testimony and appreciated 
your comments on the importance of the Air National Guard and Air Force 
Reserve. As the President's nominee to command TRANSCOM, I would 
appreciate your thoughts on maximizing the capabilities of Stewart ANGB 
by increasing the number of C-17s based there.
    General Fraser. TRANSCOM recognizes the importance of the Air 
National Guard (ANG) and Air Force Reserve Command (AFRC) to the 
strategic airlift mission. The continued contributions of the Stewart 
ANGB airmen are invaluable to the Air Force, as they complete the 
transition from C-5As to C-17s. The Air Force is responsible for the 
basing of strategic airlift assets which is accomplished through the 
Secretary of the Air Force's Strategic Basing Process. The process is 
deliberate, repeatable, and transparent, with defined roles and 
responsibilities designed to find the appropriate location for aircraft 
and personnel basing.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                        support for afghanistan
    4. Senator McCain. General Fraser, our relations with Pakistan have 
hit new lows since the raid that killed Osama bin Laden in early May. 
Pakistan has insisted that some of our training and assistance forces 
be withdrawn, and has continued to create delays and uncertainty in 
authorizing visas for a wide variety of Americans to enter Pakistan. 
How concerned are you about our logistics routes that support our 
troops in Afghanistan that run through Pakistan?
    General Fraser. All of our lines of communication are vital and we 
must continue with our best diplomatic efforts to maintain them and 
keep them open. It is mutually beneficial for the United States and 
Pakistan to promote a stable Afghanistan. Pakistan remains an important 
ally in that effort. Our logistical networks within Pakistan are just a 
portion of a vast network of supply lines serving Afghanistan.

    5. Senator McCain. General Fraser, what alternatives could we use, 
if needed?
    General Fraser. TRANSCOM, in coordination with U.S. European 
Command and CENTCOM, has built a network of routes to support 
operations in Afghanistan.
    Surface cargo supporting Afghanistan travels via the Pakistan road 
network or the NDN road and railway routes. TRANSCOM is working with 
our commercial and international partners to further expand NDN 
capability by seeking approval to transport wheel armored vehicles and 
their spare parts.
    Cargo requiring airlift travels via Pakistan or the northern air 
corridors transiting Central Asia. TRANSCOM is continually developing 
and maturing multi-modal locations throughout the Middle East and in 
Europe to include the recent addition of a 100 percent commercial 
multi-modal hub in Dubai and the recently completed 172nd Brigade 
Combat Team deployment via commercial assets through Romania. TRANSCOM 
continues to seek multi-modal opportunities to reduce airlift costs 
while improving overall asset utilization and velocity.
    These routes are designed to overlap and maintain the ability to 
surge if one node is restricted due to unforeseen events while keeping 
the warfighter supported within Afghanistan.

    6. Senator McCain. General Fraser, how confident are you that 
TRANSCOM will be able to fully support the movement of troops and 
equipment that will be needed to implement our strategy in Afghanistan?
    General Fraser. As a land-locked country with remarkable 
topography, logistical support into and out of Afghanistan is extremely 
challenging. Over the last 10 years we have learned many lessons and 
have worked to build as many land, air, and sea routes to support the 
warfighter in Afghanistan as possible. TRANSCOM and CENTCOM both assess 
that we will continue to be able to sustain the current force level 
within Afghanistan. Together, we have worked hard to create a robust 
and efficient logistical network with multiple overlapping routes that 
fosters competition in the commercial industry to help keep costs in 
check while providing sufficient logistical capacity.

    7. Senator McCain. General Fraser, under the President's 
Afghanistan withdrawal strategy, do the caps or limits on the numbers 
of troops authorized in Afghanistan provide a challenge for TRANSCOM 
forces as they move equipment in, out, and around Afghanistan and 
continue to support our remaining combat forces there?
    General Fraser. TRANSCOM has sufficient military and commercial 
logistical personnel on the ground to successfully sustain current 
operations within Afghanistan.

                       u.s. funds to the taliban
    8. Senator McCain. General Fraser, reportedly, a year-long 
military-led investigation recently concluded that U.S. taxpayers' 
money has been indirectly funneled to the Taliban under a $2.2 billion 
ground transportation contract. Yet U.S. and Afghan efforts to address 
the problem have been slow and ineffective, and all eight of the 
trucking firms involved in the work apparently remain on the U.S. 
payroll. According to reports, DOD found that four of the eight 
transportation contracts in Afghanistan are funding the insurgents 
there and that six of the eight companies were associated with 
``fraudulent paperwork and behavior.'' Despite these findings by the 
Government Accountability Office and DOD, in March, the Pentagon 
extended the contract for another 6 months. In your view, how much of a 
problem is our unwittingly contracting with the enemy in Afghanistan--
particularly with regard to transportation contracts?
    General Fraser. Any funds being siphoned off to the enemy is a 
problem. The Host Nation Trucking contracts referred to in these 
reports fall under the responsibility of CENTCOM and do not correlate 
to the inter-modal transportation contracts managed by TRANSCOM. 
TRANSCOM assessed potential risk upon receipt of the Warlord Inc. 
report and found minimal risk to our contracts. We have provided this 
report to Universal Services Contract carriers for their reference when 
subcontracting transportation services in Afghanistan. We also 
forwarded a 25 July 2011 Washington Post article, titled: ``U.S. Cash 
Said to be Reaching Taliban'', to our commercial partners and the 
carriers confirmed they are not doing business with the companies cited 
in the article. As the TRANSCOM commander, I will ensure we work hard 
to assist CENTCOM in their efforts to address this issue.

    9. Senator McCain. General Fraser, how do you intend to address 
this issue?
    General Fraser. TRANSCOM will continue to work with contractors to 
mitigate risk concerning this issue, when acquiring transportation 
services into Afghanistan. We shared the Warlord Inc. report with our 
contractors providing transportation services in Afghanistan, asking 
them to compare their operations to those of the Host Nation Trucking 
contract carriers and assess the risk. Based on the Warlord Inc. report 
and our carriers' feedback, it appears most of the risk of money going 
to the Taliban was associated with subcontracted security for convoys. 
Our carriers are using Afghanistan Ministry of the Interior vetted 
companies for their convoy security. Additionally, we will continue to 
work with CENTCOM and the various task forces established to identify 
and eliminate this type of corruption.

    10. Senator McCain. General Fraser, at General Petraeus' request, 
this committee adopted legislation in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2012 that would give military 
commanders additional powers to investigate and cancel contracts in 
which insurgent ties have been found. It also imposes an affirmative 
obligation on contractors doing business with CENTCOM to conduct the 
due diligence necessary to determine if malign actors are benefitting 
from these contracts. Are you aware of these possible authorities?
    General Fraser. Yes, I understand the new legislation adopted by 
the Senate Armed Services Committee for inclusion in the proposed NDAA 
for Fiscal Year 2012. As Commander, I will work to help ensure the 
TRANSCOM commercial partners are aware of these authorities and my 
acquisition staff will execute them appropriately.

    11. Senator McCain. General Fraser, do you think they may be 
helpful with respect to contracting for transportation in Afghanistan? 
Please explain your answer fully.
    General Fraser. Yes. Further, the Commander, International Security 
Assistance Force published the Counterinsurgency Contracting Guidance 
in September 2010 which emphasized contracting within a contingency 
environment is a commander's business and leaders must be aware of 
contracting activities that are occurring within their areas of 
responsibility. If not properly monitored, contract and donor funds 
could be diverted from their intended purpose and fuel corruption, 
finance insurgent organizations, or strengthen criminal networks. Being 
able to terminate a contract when this occurs will stop the flow of 
funds immediately, and facilitate the ability to look into records of 
contractors and subcontractors at any tier. This will assist Task Force 
2010 which was established to ensure the money spent by the coalition 
is delivering the intended purpose and that contract efforts are linked 
to implementing the counterinsurgency strategy effectively.

                           airlift capability
    12. Senator McCain. General Fraser, a major reason why the Air 
Force has excess large cargo aircraft is because the Senate and House 
Appropriations Committees in recent years have earmarked 44 additional 
C-17s for the Boeing Company that were not requested by DOD nor 
authorized by the Senate and House Armed Services Committees. Does the 
programmed fleet of 300 large cargo aircraft provide enough capacity to 
meet wartime and peacetime requirements?
    General Fraser. Yes. The most demanding scenario in the Mobility 
Capabilities and Requirements Study 2016 (MCRS-16) generates a 
strategic airlift fleet requirement of 32.7 million ton miles per day 
(MTM/D). A fleet of 222 C-17s, 52 C-5Ms, and 27 C-5As meets the 32.7 
MTM/D requirements.

    13. Senator McCain. General Fraser, in your view, what is the 
budgetary impact to the Air Force if restricted from executing 
programmed C-5A retirements?
    General Fraser. The fiscal year 2012 President's budget recommends 
retiring 10 C-5As. Without relief from the NDAA for Fiscal Year 2010's 
316 airlift floor restriction, these 10 C-5As, as well as the remaining 
5 from the fiscal year 2011 President's budget (15 C-5As in total) 
would be restricted from retirement. To continue to operate and 
maintain these aircraft drives a $1.23 billion Future Years Defense 
Program bill. Of this $1.23 billion, $844 million is operations and 
maintenance funding for flying hours and depot level maintenance. This 
funding is not included in the fiscal year 2012 President's budget and 
would have to be sourced from other Air Force programs.

    14. Senator McCain. General Fraser, in your view, where will the 
funding come from to pay for maintaining and flying the extra aircraft 
if the Air Force is not allowed to retire them?
    General Fraser. Assuming a fixed or declining defense budget for 
the foreseeable future, funding to pay for maintaining and flying the 
extra C-5A aircraft would have to be sourced from other Air Force 
programs.

    15. Senator McCain. General Fraser, the President has announced we 
will begin to withdraw from Afghanistan. Is there adequate airlift to 
support this endeavor and the continued withdrawal from Iraq?
    General Fraser. Yes. There is adequate airlift capacity to support 
the withdrawal from Afghanistan. The MCRS-16 determined the strategic 
airlift requirement to be 32.7 MTM/D. That determination is based upon 
a requirement to support two overlapping large-scale land campaigns 
occurring in different theaters, and still handle the steady-state 
requirements of Operation Enduring Freedom in Afghanistan. As an 
illustration, while supporting both the troop withdrawal from Iraq and 
the surge into Afghanistan, TRANSCOM's busiest day in Air Mobility 
Command was March 23, where they performed 16.6 MTM/D of lift. The 
difficulty in planning the withdrawal from Afghanistan and Iraq is 
determining the rate of withdrawal, which will be directed by our 
national leadership.

    16. Senator McCain. General Fraser, what limitations are there and 
how do you intend to overcome them, if confirmed?
    General Fraser. First and foremost, TRANSCOM will always deliver, 
and we have the capability to do that today. We must continue to 
support the warfighter, in all locations and climates, without fail. 
While doing so, we must remain good stewards of the taxpayers' money, 
and continue our efforts to locate faster, less-expensive ways to 
deliver the forces and support, and bring our troops home. I intend to 
overcome any limitations by relying upon the hard work and innovation 
of the men and women of TRANSCOM, our component commands and commercial 
partners, and by encouraging efforts to find new and efficient ways of 
doing business. This will also require support from Congress to 
complete the right-sizing of the airlift fleet to facilitate 
efficiencies. As Commander, I look forward to working with Congress on 
this issue.

                           health care costs
    17. Senator McCain. General Fraser, in a modest attempt to control 
DOD's health care costs, former Secretary Gates sought to apply a 
medical inflation factor to TRICARE Prime enrollment fees for working-
age retirees beginning in fiscal year 2013. Unfortunately, our 
committee balked at that idea, and reported a bill that would 
permanently tie DOD's hands to annual increases to the annual increase 
in retired pay, which has been minimal.
    TRICARE fees haven't changed since they were established in 1995. 
At that time, according to DOD, working age retirees paid about 27 
percent of their total costs when using civilian care. Today, out-of-
pocket expenses for working age retirees represent less than 9 percent 
of the total cost of the family's health care costs. Some argue that 
health care benefits to retirees have been eroded over time. Do you 
agree?
    General Fraser. I believe military retiree health benefits are well 
deserved and are important to all retirees. The Assistant Secretary of 
Defense Health Affairs and TRICARE Management Activity (TMA) should 
address any possible erosion of DOD health care benefit.

    18. Senator McCain. General Fraser, do you support the 
administration's modest goal of linking future increases in fees for 
working age retirees to a factor that relates to rising national 
medical costs?
    General Fraser. This question relates to DOD Health Care Benefits 
and belongs in the purview of Assistant Secretary of Defense Health 
Affairs and/or TMA.

    19. Senator McCain. General Fraser, do you see the rise in health 
care costs as a threat to readiness and if so, what would you do or 
recommend, if confirmed, to address this very serious issue for DOD?
    General Fraser. This question relates to DOD Health Care Benefits 
and belongs in the purview of Assistant Secretary of Defense Health 
Affairs and/or TMA.

                    defense personal property system
    20. Senator McCain. General Fraser, in your advance policy question 
regarding Defense Personal Property System (DPS), you indicated that 
DOD currently is paying approximately 52 percent of all claims from 
servicemembers for lost or damaged household goods in connection with 
permanent change of station (PCS) moves. This is a surprisingly high 
number given the assurances from Surface Deployment and Distribution 
Command (SDDC) and TRANSCOM when the DPS was proposed and justified to 
Congress that the movers and shippers, who cause the damage, would be 
required by the terms of their contracts to reimburse the servicemember 
directly at full replacement value. Please explain why DOD is currently 
paying such a high percentage of household goods claims for lost or 
damaged property.
    General Fraser. Although 52 percent of claims are paid through the 
Military Claims Office (MCO), this figure is a fraction of all DOD 
shipments in fiscal year 2010, whether moved in the DPS or the legacy 
system, the Transportation Operational Personal Property Standard 
System (TOPS). During fiscal year 2010, approximately 55 percent of 
shipments were transferred through TOPS, which partially accounts for 
the high percentage of shipments settled by the DOD.

    21. Senator McCain. General Fraser, what is the dollar figure of 
the amount, per year, that DOD is paying out in claims in connection 
with PCS moves, and what percentage of that amount is DOD actually 
collecting after-the-fact from movers?
    General Fraser. The DOD amount paid and recovery amounts are not a 
one-on-one, per claim, correlation. DOD could pay an amount on a claim 
during 1 fiscal year, and the recovery could very well be in the next 
fiscal year. Due to reasons such as, but not limited to, appeal 
processes (negotiating, rebutting, going back and forth with the 
Transportation Service Provider (TSP)), previous lack of offset 
capability, and MCO consolidations, providing a consolidated monetary 
comparison which ties a fiscal year payout to the same fiscal year for 
recovery is not a possible task.
    The claims payments and recoveries vary slightly between Services, 
but the individual recovery rate(s) are approximately 95 to 97 percent. 
As of 31 July 11, DOD MCOs collectively paid out approximately $3.9 
million and collected approximately $3.3 million. However, it must be 
reiterated that the collections reflected above do not correlate to the 
claims paid during this fiscal year for the reasons previously stated.

    22. Senator McCain. General Fraser, are meritorious claims being 
paid by DOD to servicemembers being paid at depreciated value or full 
replacement value of the items lost or damaged?
    General Fraser. A meritorious claim is one that meets all the 
statutory and regulatory criteria for payment and they are the only 
kind the Services pay. Initial payment to the servicemember is 
depreciated value; however, when the MCO is successful at recouping 
from the TSP full replacement value and additional monies are 
recovered, those additional monies are provided back to the customer.

    23. Senator McCain. General Fraser, PCS moves involving 
international travel present unique challenges because of the numbers 
of movers and shippers involved and the time and distance involved in 
the shipments. Last year, DOD requested and received statutory 
authority for DOD to pay full replacement value claims of this kind. 
What is your assessment of DOD and SDDC's practical and legal ability 
to require reimbursement of claims at full replacement value from 
movers and shippers for international moves?
    General Fraser. The SDDC's assessment is that claims are being 
processed and settled internationally at the full replacement value as 
detailed in the policy guidance.

    24. Senator McCain. General Fraser, is there a solution for this 
aspect of the DPS claims system, or is this a cost DOD and the Services 
must plan on absorbing?
    General Fraser. There is no additional cost to DOD for claims 
associated with DPS.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
              contracting airlift from russia and ukraine
    25. Senator Chambliss. General Fraser, the Air Force is proposing 
to retire additional C-5As for a total of 32 aircraft because they 
believe these aircraft are excess to the Air Force's needs. It has been 
estimated that between 2005 and 2009, DOD spent $1.7 billion 
contracting airlift from the Russians and Ukrainians. This is a good 
deal more than the amount of resources the Air Force hopes to save by 
retiring additional C-5s. Do you think it makes sense and is a good 
expenditure of U.S. taxpayers' resources to retire U.S. aircraft when 
we are already relying on foreign aircraft to meet our needs and are 
spending billions of dollars contracting with the Russians and 
Ukrainians for these aircraft?
    General Fraser. Contracting for oversize/outsize commercial airlift 
using our Civil Reserve Airlift Fleet (CRAF) carriers and their 
commercial partners is a prudent use of taxpayers' dollars. When not 
operating at full war-time capability and utilization rates, as in 
current operations today, it is 25 percent less costly to move Mine 
Resistant Ambush Protected (MRAP) vehicles by AN-124s than by C-5s. 
Furthermore, by contracting for foreign strategic airlift today, we 
extend the useful life of our strategic airlift fleet into the future, 
increasing our system capacity, operational flexibility, and 
strengthening relationships with our commercial partners.

    26. Senator Chambliss. General Fraser, are Russian and Ukrainian 
aircraft available worldwide or just in limited locations?
    General Fraser. Foreign airlift is available worldwide to support 
TRANSCOM requirements when U.S. flag capabilities are not suitable due 
to cargo constraints or destination restrictions.

    27. Senator Chambliss. General Fraser, how, or does, the United 
States account for the fact that, based on the specific requirement the 
Russians and Ukrainians are asked to support, they might decline to do 
so, similar to how some countries where we have troops or assets 
stationed have denied over-flight rights or denied those troops or 
assets being used for certain purposes?
    General Fraser. There is a distinction between resources we use for 
our planned war-time capability and those we use in current operations. 
Our planned war-time capability does not rely upon any foreign source 
of airlift. By contracting for foreign strategic airlift today, we 
extend the useful life of our organic inventory into the future. 
Additionally, TRANSCOM use of foreign airlift via subcontracts with our 
CRAF partners increases system capacity and flexibility, is a prudent 
use of taxpayers' dollars as these capabilities are often less costly 
to utilize than organic assets, and serves to strengthen our important 
relationship with our commercial partners.

        mobility capabilities and requirements study reliability
    28. Senator Chambliss. General Fraser, in 2008, DOD conducted a 
Strategic Airlift Review and concluded that the then current program of 
record was the most cost effective and there was no need for additional 
C-17s. The Joint Requirements Oversight Council also established a 
requirement for 33.95 million-ton-miles (MTM) organic capability and 
stated that any reduction in strategic airlift capability would 
increase risk to unacceptable levels and jeopardize DOD's ability to 
adequately support the combatant commands.
    In 2008, OSD also certified the need for 316 strategic airlifters. 
In 2009, a congressionally-directed airlift review conducted by the 
Institute for Defense Analyses concluded that the current program of 
record (316 aircraft) met all requirements and that retiring C-5As to 
buy/operate additional C-17s was not cost effective. Air Force 
leadership also testified to Congress that 316 strategic airlift 
aircraft was ``the sweet spot''.
    In 2009, the MCRS established a new 32.7 MTM worst-case requirement 
which was lower than previous studies in recent years. The Air Force's 
desire to retire 30+ C-5As which could drive the strategic airlift 
fleet below 300 aircraft is based on this most recent study.
    Over the last 3 to 4 years, DOD and the Air Force have changed 
their position several times on what the strategic airlift requirement 
is. How do you compare the results of these studies and which study is 
most correct?
    General Fraser. All previous DOD-level studies you reference were 
correct. History has shown a need to update such studies every 
quadrennial review cycle and we respond to those validated and reviewed 
changes each time we submit a new Program Objective Memorandum (POM). 
The MCRS-16 is the most current and now serves as the foundation for a 
requirements demand signal extending to fiscal year 2016.
    Based on MCRS-16, we know that the peak demand signal for 32.7 MTM/
D of strategic organic airlift capacity can be met with approximately 
300 aircraft. Our program of record for 222 C-17s, 52 RERPed C-5Ms, and 
27 C-5As assures we can address the most demanding validated needs of 
the Nation with this force structure.

    29. Senator Chambliss. General Fraser, how do we know that you have 
it right this time and that we are not incurring unacceptable or 
unnecessary risk?
    General Fraser. The MCRS-16 is the most current assessment of the 
need for mobility assets based on 2 years of studying three demanding 
cases involving the integration of scenarios to simultaneously protect 
the Homeland, posture our Nation to respond to events around the globe, 
and be prepared to address significant overlapping combatant campaigns 
in response to threats to our national interests. These DOD validated 
scenario sets are continuously being reviewed and updated to assure we 
can respond to world events and address conflicts with acceptable 
levels of risk. Each year we submit our programming actions based upon 
the most current family of scenario sets and demands approved by the 
Department.
                                 ______
                                 
    [The nomination reference of Gen. William M. Fraser III, 
USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Air Force 
to the grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General

    Gen. William M. Fraser III, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. William M. Fraser III, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Biographical Sketch of Gen. William M. Fraser III, USAF
    Gen. William M. Fraser III is Commander, Air Combat Command, with 
headquarters at Langley Air Force Base, VA, and Air Component Commander 
(ACC) for U.S. Joint Forces Command. As the commander, he is 
responsible for organizing, training, equipping, and maintaining 
combat-ready forces for rapid deployment and employment while ensuring 
strategic air defense forces are ready to meet the challenges of 
peacetime air sovereignty and wartime defense. ACC operates more than 
1,000 aircraft, 22 wings, 13 bases, and more than 300 operating 
locations worldwide with 79,000 Active-Duty and civilian personnel. 
When mobilized, the Air National Guard and Air Force Reserve contribute 
more than 700 aircraft and 49,000 people to ACC. As the Combat Air 
Forces lead agent, ACC develops strategy, doctrine, concepts, tactics, 
and procedures for air and space power employment. The command provides 
conventional and information warfare forces to all unified commands to 
ensure air, space, and information superiority for warfighters and 
national decisionmakers. ACC can also be called upon to assist national 
agencies with intelligence, surveillance, and crisis response 
capabilities.
    General Fraser entered the Air Force in 1974 as a distinguished 
graduate of the Texas A&M University Reserve Officers' Training Corps 
program. His operational assignments include duty as a T-37, B-52, B-1, 
and B-2 instructor pilot and evaluator. General Fraser has commanded an 
operations group and two bomb wings. His staff duties include tours on 
the Air Staff, Joint Staff, and Joint Strategic Target Planning Staff 
at Offutt Air Force Base, NE. He has also served as Chief of the 
Nuclear Requirements Cell at Supreme Headquarters Allied Powers Europe, 
Chief of Staff for U.S. Strategic Command, and as the Assistant to the 
Chairman of the Joint Chiefs of Staff.
    General Fraser has extensive war time, contingency, and 
humanitarian relief operational experience. During Operation Enduring 
Freedom he led an intelligence fusion organization that provided direct 
support to the warfighter. Prior to assuming his current position, 
General Fraser served as the Air Force Vice Chief of Staff.

Education:

1974......................................  Bachelor of Science degree
                                             in engineering technology,
                                             Texas A&M University
1977......................................  Squadron Officer School,
                                             Maxwell AFB, AL
1980......................................  Master of Science degree in
                                             management information
                                             systems, University of
                                             Northern Colorado, Greeley
1983......................................  Marine Corps Command and
                                             Staff College, Quantico, VA
1985......................................  Armed Forces Staff College,
                                             Norfolk, VA
1987......................................  National Security Management
                                             Course, Syracuse
                                             University, NY
1991......................................  Air War College, Maxwell
                                             AFB, AL
1995......................................  Executive Development
                                             Program, Johnson Graduate
                                             School of Management,
                                             Cornell University, Ithaca,
                                             NY
1999......................................  Combined Force Air Component
                                             Commander Course, Maxwell
                                             AFB, AL
1999......................................  Senior Information Warfare
                                             Applications Course,
                                             Maxwell AFB, AL
2000......................................  National Security Leadership
                                             Course, National Security
                                             Studies, Maxwell School of
                                             Citizenship and Public
                                             Affairs, Syracuse
                                             University, NY
2002......................................  Executive Program for
                                             Russian and U.S. General
                                             Officers, John F. Kennedy
                                             School of Government,
                                             Harvard University,
                                             Cambridge, MA
2002......................................  Joint Flag Officer
                                             Warfighting Course, Maxwell
                                             AFB, AL
2002......................................  Senior Intelligence Fellows
                                             Program, Wye River, MD
2003......................................  Program for Senior
                                             Executives in National and
                                             International Security,
                                             John F. Kennedy School of
                                             Government, Harvard
                                             University, Cambridge, MA
2005......................................  Leadership at the Peak,
                                             Center for Creative
                                             Leadership, Colorado
                                             Springs, CO



Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
November 1974...................  October 1975......  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Williams AFB, AZ
October 1975....................  March 1976........  Student,
                                                       instructor pilot
                                                       training,
                                                       Randolph AFB, TX
March 1976......................  February 1978.....  T-37 instructor
                                                       pilot and T-37
                                                       check pilot, 96th
                                                       Flying Training
                                                       Squadron,
                                                       Williams AFB, AZ
March 1978......................  March 1980........  T-37 instructor
                                                       pilot and flight
                                                       examiner, 82nd
                                                       Flying Training
                                                       Wing, Williams
                                                       AFB, AZ
March 1980......................  October 1980......  Operational
                                                       Support Aircraft
                                                       Program Element
                                                       Monitor, Air
                                                       Staff Training
                                                       Program,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
October 1980....................  April 1981........  Worldwide Military
                                                       Command, Control
                                                       and
                                                       Communications
                                                       Program Element
                                                       Monitor, Air
                                                       Staff Training
                                                       Program,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
May 1981........................  October 1981......  B-52H student,
                                                       4017th Combat
                                                       Crew Training
                                                       Squadron, Castle
                                                       AFB, CA
October 1981....................  March 1983........  B-52H aircraft
                                                       commander, later
                                                       B-52G aircraft
                                                       commander and
                                                       instructor pilot,
                                                       46th Bomb
                                                       Squadron, Grand
                                                       Forks AFB, ND
March 1983......................  December 1984.....  Chief, B-52G
                                                       Standardization
                                                       and Evaluation
                                                       Branch, 319th
                                                       BombWing, Grand
                                                       Forks AFB, ND
January 1985....................  June 1985.........  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       VA
June 1985.......................  March 1986........  Chief, European
                                                       Single Integrated
                                                       Operational Plan
                                                       Tactics, Joint
                                                       Strategic Target
                                                       Planning Staff,
                                                       Offutt AFB, NE
April 1986......................  October 1987......  Executive officer
                                                       to the Strategic
                                                       Air Command Chief
                                                       of Staff,
                                                       Headquarters SAC,
                                                       Offutt AFB, NE
October 1987....................  July 1990.........  Chief, Nuclear
                                                       Requirements
                                                       Cell, SHAPE,
                                                       Mons, Belgium
July 1990.......................  July 1991.........  Student, Air War
                                                       College, Maxwell
                                                       AFB, AL
July 1991.......................  July 1993.........  Deputy Commander,
                                                       384th Operations
                                                       Group, McConnell
                                                       AFB, KS
July 1993.......................  January 1995......  Commander, 509th
                                                       Operations Group,
                                                       Whiteman AFB, MO
January 1995....................  August 1995.......  Vice Commander,
                                                       509th Bomb Wing,
                                                       Whiteman AFB, MO
August 1995.....................  January 1997......  Special Assistant
                                                       to the Supreme
                                                       Allied Commander
                                                       Europe, SHAPE,
                                                       Mons, Belgium
February 1997...................  May 1998..........  Commander, 28th
                                                       Bomb Wing,
                                                       Ellsworth AFB, SD
May 1998........................  May 1999..........  Chief of Staff,
                                                       U.S. Strategic
                                                       Command, Offutt
                                                       AFB, NE
May 1999........................  December 2000.....  Commander, 2nd
                                                       Bomb Wing,
                                                       Barksdale AFB, LA
December 2000...................  December 2002.....  Deputy Director
                                                       for National
                                                       Systems
                                                       Operations, the
                                                       Joint Staff;
                                                       Director, Defense
                                                       Space
                                                       Reconnaissance
                                                       Program; and
                                                       Deputy Director
                                                       for Military
                                                       Support, National
                                                       Reconnaissance
                                                       Office,
                                                       Washington, DC
January 2003....................  October 2004......  Director of
                                                       Operations,
                                                       Headquarters
                                                       AETC, Randolph
                                                       AFB, TX
November 2004...................  February 2005.....  Special Assistant
                                                       to the Commander,
                                                       Air Force Command
                                                       and Control,
                                                       Intelligence,
                                                       Surveillance and
                                                       Reconnaissance
                                                       Center, Deputy
                                                       Chief of Staff
                                                       for Warfighting
                                                       Integration,
                                                       Langley AFB, VA
February 2005...................  May 2006..........  Vice Commander,
                                                       Air Combat
                                                       Command, Langley
                                                       AFB, VA
May 2006........................  October 2008......  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC
October 2008....................  September 2009....  Vice Chief of
                                                       Staff,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
September 2009..................  Present...........  Commander, Air
                                                       Combat Command,
                                                       Langley AFB, VA,
                                                       and Air Component
                                                       Commander for
                                                       U.S. Joint Forces
                                                       Command
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
June 1985.......................  March 1986........  Chief, European
                                                       Single Integrated
                                                       Operational Plan
                                                       Tactics, Joint
                                                       Strategic Target
                                                       Planning Staff,
                                                       Offutt AFB, NE,
                                                       as a major
October 1987....................  July 1990.........  Chief, Nuclear
                                                       Requirements
                                                       Cell, SHAPE,
                                                       Mons, Belgium, as
                                                       a lieutenant
                                                       colonel
August 1995.....................  January 1997......  Special Assistant
                                                       to the Supreme
                                                       Allied Commander
                                                       Europe, SHAPE,
                                                       Mons, Belgium, as
                                                       a colonel
May 1998........................  May 1999..........  Chief of Staff,
                                                       U.S. Strategic
                                                       Command, Offutt
                                                       AFB, NE, as a
                                                       colonel
December 2000...................  December 2002.....  Deputy Director
                                                       for National
                                                       Systems
                                                       Operations, the
                                                       Joint Staff;
                                                       Director, Defense
                                                       Space
                                                       Reconnaissance
                                                       Program; and
                                                       Deputy Director
                                                       for Military
                                                       Support, National
                                                       Reconnaissance
                                                       Office,
                                                       Washington, DC,
                                                       as a brigadier
                                                       general
May 2006........................  October 2008......  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC,
                                                       as a lieutenant
                                                       general
------------------------------------------------------------------------


Flight information:
    Rating: Command pilot
    Flight hours: More than 4,200
    Aircraft flown: T-37, T-38, T-1, KC-135R, B-1B, B-2, B-52G/H, and 
C-21

Major awards and decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal with oak leaf cluster
    Defense Superior Service Medal with two oak leaf clusters
    Legion of Merit with two oak leaf clusters
    Defense Meritorious Service Medal with oak leaf cluster
    Meritorious Service Medal with oak leaf cluster
    Air Force Commendation Medal with oak leaf cluster
    Air Force Achievement Medal
    Secretary's Distinguished Service Award, Department of State
    National Intelligence Medal of Achievement
    Combat Readiness Medal
    National Defense Service Medal with bronze star
    Armed Forces Expeditionary Medal
    Global War on Terrorism Service Medal
    Armed Forces Service Medal
    Military Outstanding Volunteer Service Medal

Other achievements:
    Officer training award, undergraduate pilot training
    Top graduate, T-37 pilot instructor training
    T-37 Instructor Pilot of the Year
    Distinguished graduate, B-52 G/H combat crew training
    Air Force Public Affairs Directors Special Achievement Award for 
commander support
    Joseph A. Moller Award, Outstanding Wing Commander, ACC
    Gold Medal, National Reconnaissance Office

Effective dates of promotion:

  Second Lieutenant.......................  November 8, 1974
  First Lieutenant........................  November 8, 1976
  Captain.................................  November 8, 1978
  Major...................................  October 1, 1983
  Lieutenant Colonel......................  June 1, 1988
  Colonel.................................  January 1, 1992
  Brigadier General.......................  January 1, 2000
  Major General...........................  October 1, 2003
  Lieutenant General......................  February 3, 2005
  General.................................  October 8, 2008


                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Gen. William 
M. Fraser III, USAF, in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William M. Fraser III.

    2. Position to which nominated:
    Commander, U.S. Transportation Command.

    3. Date of nomination:
    June 16, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    17 August 1952; Lakeland, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Beverly Anne Fraser (Maiden Name: Copeland).

    7. Names and ages of children:
    William M. Fraser IV; age 34.
    Ashlee Fraser Cain (Maiden name: Ashlee Jeanette Fraser); age 32.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Air Force Association (member)
    Order of Daedalians (member)
    Texas A&M University Association of Former Students (member)
    15th Air Force Association (member)
    Army and Air Force Mutual Aid Association (member)
    Military Officers Association of America (member)
    American Association of Retired Persons (member)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             William M. Fraser III.
    This 15th day of February 2011.

    [The nomination of Gen. William M. Fraser III, USAF, was 
reported to the Senate by Chairman Levin on August 2, 2011, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2011.]
                                ------                                


                            ANNEX A

    [General Martin E. Dempsey's responses to his advance 
policy questions from his nomination hearing dated March 3, 
2011, to be Chief of Staff of the U.S. Army follow:]
                        Questions and Responses
                      army role in the joint force
    Question. The U.S. military fights as a joint force and strives to 
achieve realistic training in preparation for military operations. The 
Army provides trained and equipped forces for joint military 
operations.
    How do you believe the Army can best contribute to improved joint 
military capabilities while preserving its service unique capabilities 
and culture?
    Answer. The Army works our relationships with Sister Services 
diligently while maintaining our unique values, culture, and 
traditions. The Army provides forces for prompt and sustained combat 
operations on land as a component of the Joint Force. Through sustained 
operations on land and among populations, we make permanent the 
advantages gained by joint forces.
                           acquisition issues
    Question. Major defense acquisition programs in the Department of 
the Army and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. A variety of factors contribute to increased risks of cost 
increase and delay, depending on the program, the technologies 
involved, and the acquisition strategy employed. However, I agree that 
the foundation for any successful large acquisition program rests on 
carefully refined requirements, a sound program strategy, and funding 
stability.
    Question. What steps, if any, do you believe the Army should take 
to address funding and requirements instability?
    Answer. Requirements must be carefully refined to meet realistic 
and affordable objectives, and they must account for the rate of 
technological and scientific change in meeting needed capabilities.
    Question. What is your view of the Configuration Steering Boards 
required by statute and regulation to control requirements growth?
    Answer. I support efforts by Congress to control costs, refine 
requirements, and reduce program risk in our major acquisition 
programs. The Configuration Steering Boards play a significant role in 
oversight of acquisition programs and compliment Army efforts to 
validate requirements and eliminate redundancies through Capability 
Portfolio Reviews. In tandem, these oversight processes help the Army 
avoid cost increases and delays in our programs.
    Question. What role would you expect to play in these issues, if 
confirmed as Army Chief of Staff?
    Answer. If confirmed as Chief of Staff, I will work diligently with 
the Secretary of the Army and the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology to ensure that all oversight 
mechanisms for acquisition programs are used effectively to reduce cost 
and schedule risk. In the area of requirements, I will work with TRADOC 
to refine requirements to meet affordable and achievable acquisition 
strategies.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. I agree that this assessment is valid with respect to some 
of the Army's past programs. However, the Army has already adopted 
different approaches in the development of more recent programs. I 
understand that prior to the release of the Ground Combat Vehicle (GCV) 
Request for Proposals (RFP) in November 2010, the program's 
requirements were carefully reviewed, prioritized and weighted in the 
RFP to avoid reliance on immature technologies, mitigate cost and 
schedule risk, and provide an achievable and affordable framework for a 
new vehicle. The GCV program involved close coordination between 
acquisition, requirements and resourcing experts to provide a solid 
program foundation. The Army is vigorously working to avoid the 
characterizations in the Comptroller General's assessment in future 
programs.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. The Department of the Army has already begun taking 
significant steps to address these concerns. There is a renewed 
emphasis on collaboration between the requirements and acquisition 
communities in the development of new programs. Last year, Secretary 
McHugh commissioned a thorough review of the Army's acquisition process 
led by The Hon. Gil Decker and Gen (Ret.) Lou Wagner that provides a 
blueprint for improvements to the acquisition process. I understand the 
Army is now studying these recommendations and developing a plan to 
implement those that help our process. As a whole, the Department must 
continue to build on these efforts to avoid unnecessary cost and delay 
in our programs.
    Question. What role would you expect to play in these issues, if 
confirmed as Army Chief of Staff?
    Answer. If confirmed as Chief of Staff, I will continue to work 
with Department of the Army leadership to implement any necessary 
changes to ensure that the Army's acquisition programs succeed in 
providing needed capabilities to our soldiers.
    Question. Beginning in 2010, the Army began a series of 
capabilities portfolio reviews that have contributed to the 
rationalization of the Army's modernization plans and resulted in 
significant programmatic decisions, including the termination of major 
weapons programs.
    What is your understanding and assessment of the Army's 
capabilities portfolio reviews and process?
    Answer. The capabilities portfolio reviews have been successful in 
identifying redundancy and finding efficiencies across system 
portfolios. The Army is now studying how to best institutionalize the 
capabilities portfolio reviews process to identify additional 
efficiencies, and then work to achieve them.
    Question. If confirmed, what actions would you take, if any, to 
institutionalize the portfolio review process within the Army?
    Answer. If confirmed, I look forward to reviewing the studies to 
institutionalize portfolio review process to identify and achieve 
further Army efficiencies.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. According to press reports, a recent modernization study 
done for the Secretary of the Army by former Assistant Secretary of the 
Army Gilbert Decker and retired Army General Louis Wagner found that 
the Army has spent $3.3 billion to $3.8 billion annually since 2004 on 
weapons programs that have been cancelled.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. Over the last 10 years, our Army has achieved a remarkable 
degree of modernization in areas such as improving soldier protection, 
increasing battlefield intelligence, and bringing the network to 
individual soldiers. At the same time, we have nearly completed the 
modular conversion of over 300 brigade level organizations and to 
complete the conversion of our division and higher level headquarters 
to enable mission command in the operational environments we anticipate 
in the first half of the 21st century. If confirmed, I look forward to 
studying the Decker-Wagner recommendations to identify areas where we 
can improve.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. I recognize that a stable modernization strategy and 
program is an important component to both a balanced Army and to 
exercise good stewardship of resources entrusted to the Services. If 
confirmed, I will work closely with Secretary McHugh on how to achieve 
this.
    Question. What is your understanding and assessment of the Army's 
current modernization investment strategy?
    Answer. While it is true that several of our major modernization 
efforts over the past decade have been unsuccessful, I would submit 
that the American soldier today is the best equipped and enabled 
soldier this country has ever fielded. Successes such as the Stryker 
vehicle, world class body armor, soldier night vision equipment, 
soldier weapons, precision fire systems such as Excalibur and High 
Mobility Artillery Rocket System, and vehicles such as the family of 
medium trucks all suggest to me that the Army has had some tremendous 
success in modernization.
    I believe the Army has learned some valuable lessons and now has 
both the processes and the mindset to more carefully and rigorously 
review programs both before we initiate them and while they are in 
progress. This will be an area I will assess more deeply if I am 
confirmed as Chief of Staff and will periodically give this committee 
my frank assessments.
    Question. Do you believe that this strategy is affordable and 
sustainable?
    Answer. If confirmed, I plan to closely examine this strategy to 
ensure it is affordable and sustainable.
    Question. In your view does the Army's current modernization 
investment strategy appropriately or adequately address current and 
future capabilities that meet requirements for unconventional or 
irregular conflict?
    Answer. From my current position, I believe the current 
modernization investment strategy strikes an appropriate balance 
between current and future capabilities. If confirmed, I look forward 
to studying this further with the Army staff.
    Question. Does the investment strategy appropriately or adequately 
address requirements for conventional, high-end conflict with a peer or 
near-peer enemy?
    Answer. From my current position, I believe the current 
modernization investment strategy appropriately and adequately 
addresses requirements for conventional, high-end conflict with the 
peer or near-peer enemy we can reasonably foresee in the fiscal year 
2012-2016 FYDP time horizon.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue with respect to unconventional or conventional 
capabilities?
    Answer. I have not yet formulated investment initiatives particular 
to either conventional or unconventional capabilities that are 
different from those the Army is currently pursuing, but I look forward 
to doing so, if confirmed.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. To be good stewards of the resources provided, the Army 
must continue to internalize a ``cost culture'' that considers 
``affordability'' as an essential element of all (not just 
modernization) initiatives. If confirmed, I intend to work closely with 
the Secretary to ensure future initiatives are affordable within 
current and projected budgets.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. While I do not have that information at this time, I 
believe trade-offs must occur after all areas of risk are carefully 
considered and coordinated with the Secretary of Defense and Congress.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Ground Combat Vehicle (GCV).
    Answer. In the development of the Ground Combat vehicle--the 
replacement for the Bradley Infantry Fighting vehicle--the Army is 
fully committed to the ``Big Four'' imperatives: soldier protection; 
soldier capacity (squad plus crew); the capability to operate across 
the Full Spectrum of operations; and Timing (7 years to the first 
production vehicle from contract award). The Ground Combat Vehicle will 
be the first vehicle that will be designed from the ground up to 
operate in an Improvised Explosive Device (IED) environment. Modular 
armor will allow commanders the option to add or remove armor based on 
the current threat environment. The Ground Combat Vehicle will be 
designed with the capacity for Space, Weight, and Power growth to 
incorporate future technologies as they mature. The Army is using an 
incremental strategy for the Ground Combat Vehicle with the first 
increment being an Infantry Fighting Vehicle. The Army is currently 
reviewing proposals from vendors for Technology Development contracts.
    Question. Warfighter Information Network-Tactical (WIN-T).
    Answer. I believe that the Warfighter Information Network-Tactical 
is one of the Army's most important programs. It provides the broadband 
backbone communications for the tactical Army. Warfighter Information 
Network-Tactical Increment 1 (formerly Joint Network Node) began 
fielding in 2004 to provide a satellite based Internet Protocol network 
down to battalion level. Warfighter Information Network-Tactical 
Increment 2 begins fielding in fiscal year 2012 to provide an initial 
On the Move capability, extending down to company level. Warfighter 
Information Network-Tactical Increment 3 will provide improved 
capabilities, including higher throughput, three to four times more 
bandwidth efficiency, and an aerial transmission layer, to all 126 
brigades/division headquarters with an on-the-move requirement.
    Question. Early-Infantry Brigade Combat Team (E-IBCT) Network 
Integration Kit (NIK).
    Answer. The E-IBCT investment provides the infrastructure that will 
allow the Army to grow the tactical network capability, and an 
opportunity for both large and small companies to support the Army's 
tactical network strategy.
    The NIK is a necessary bridge solution that allows the Army to 
continue evaluation and development of incorporated network 
technologies.
    Question. Joint Tactical Radio System (JTRS) including the Ground 
Mobile Radio (GMR) and Handheld, Manpack, and Small Form Fit (HMS) 
radios.
    Answer. Joint Tactical Radio System is the Services' future 
deployable, mobile communications family of radios. They provide Army 
forces dynamic, scalable, on-the-move network architecture, connecting 
the soldier to the network. Fiscal year 2012 procurement funding 
supports fielding of Joint Tactical Radio System capability to eight 
Infantry Brigade Combat Teams to meet fiscal years 2013/2014 network 
requirements.
    The Ground Mobile Radio is the primary vehicular radio capability 
using the Wideband Networking Waveform and Soldier Radio Waveform to 
meet tactical networking requirements.
    The Man Pack and Rifleman Radio are the primary Joint Tactical 
Radio System capability for battalion and below tactical operations. 
The man pack supports the Soldier Radio Waveform and interoperates with 
legacy waveforms (Single Channel Ground and Airborne Radio Systems, 
Ultra High Frequency Satellite Communications). Rifleman Radio 
primarily serves the dismounted formation and utilizes the Soldier 
Radio Waveform to provide voice and individual location information 
from the dismounted soldier to the leader. The combination of the three 
radios helps the Army to push the network to the individual soldier.
    Question. Stryker combat vehicle, including the Double-V Hull 
initiative, procurement of more flat-bottom vehicles, and the Stryker 
mobile gun variant.
    Answer. The current Stryker vehicle has exceeded its Space, Weight 
and Power and Cooling (SWaP-C) limits due to add-on applique (armor and 
devices) required for ongoing combat operations. In the near term, it 
is imperative to increase crew protection with the Double-V-Hull (DVH) 
Stryker. In the mid-term, Stryker modernization will improve protection 
and mobility by recouping SWaP-C, enabling future growth and allowing 
integration of the emerging network for all Stryker variants. Fleet-
wide modernization for all variants upgrades protection, counter-IED, 
drive train, suspension, electrical power generation and management, 
and digital communications and network integration.
    Double-V Hull: Stryker Double-V Hull (DVH) is on track for June 
2011 fielding. The initial DVH test results are positive, indicating 
the vehicle will be ready for fielding as scheduled.
    Non-Double V Hull and Nuclear, Biological, and Chemical 
Reconnaissance Vehicle (NBCRV): The Army will procure 168 Stryker 
NBCRVs in fiscal years 2012 and 2013 for a total quantity of 284 (an 
Army Force Generation (ARFORGEN) model rotation quantity). These 
vehicles are in normal Hull configuration. The Stryker NBCRV provides a 
unique capability to the Joint Force including a critical mission of 
Homeland Defense, for which DVH protection is a lesser consideration.
    Stryker Mobile Gun System (MGS): The Army has procured and fielded 
142 of 335 MGS. In August 2009, the Army decided to not pursue 
additional MGS procurement at this time with forthcoming fleet-wide 
modernization.
    Question. Joint Light Tactical Vehicle (JLTV).
    Answer. The JLTV is a joint program with the U.S. Marine Corps, 
Navy, and the Army; the Australian Army is also currently a partner in 
the Technology Development phase. I believe that the JLTV is a vital 
program to fill the force protection and payload gaps not currently 
satisfied by the High Mobility Multipurpose Wheeled Vehicle. It will 
also fill the mobility, transportability and communication architecture 
gaps not satisfied by the Mine Resistant Ambush Protected (MRAP) 
vehicles being used in Light Tactical Vehicle (LTV) roles. The Army 
Tactical Wheeled Vehicle Strategy plans for the JLTV to replace about a 
third of the LTV fleet, which is roughly 46,000 vehicles. The Army is 
currently examining the attributes of the JLTV program to ensure it 
meets our needs for the future Army light tactical fleet, especially in 
terms of protection.
    Question. Armed Aerial Scout (AAS).
    Answer. I agree the Army has an enduring requirement for an armed 
aerial scout as was reaffirmed after the termination of the Armed 
Reconnaissance Helicopter (ARH) program.
    This requirement will be validated by the ongoing Armed Aerial 
Scout Analysis of Alternatives whose findings are scheduled for release 
in third quarter fiscal year 2011.
    Question. M1 Abrams tank modernization.
    Answer. In my view, the Abrams modernization is necessary and will 
initially enable integration of the emerging network and provide 
ability to fire the next generation of 120mm ammunition. Future 
modernization will provide capability improvements in lethality, 
protection, mission command, mobility, and reliability intended to 
maintain the Fleet's combat overmatch and restore space, weight, and 
power margins to keep the Tank relevant through 2050. The Abrams 
modernization program is funded in the fiscal year 2012 budget request. 
If confirmed, I will be able to offer an assessment as the program 
matures.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley Infantry Fighting Vehicle (IFV) will be 
replaced by the Ground Combat Vehicle beginning in 2018. Bradley Non-
Infantry Fighting Vehicle (Cavalry, Engineer and Fire Support variants) 
modernization will address recoupment of Space, Weight and Power to 
provide platform growth and enable improvements in protection, mobility 
and ability to integrate the emerging network.
    Question. Logistics Modernization Program (LMP).
    Answer. I understand the LMP is an Enterprise Resource Planning 
(ERP) system in the Operation and Support phase of its life-cycle.
    Based on commercial off-the-shelf SAP Corporation software 
technology, LMP provides the Army with an integrated end-to-end supply 
chain solution at the national level that improves overall 
synchronization of information.
    I concur with the Army's vision to achieve a seamless, end-to-end 
modernized logistics enterprise and to develop and implement logistics 
enterprise architecture with joint interoperability. To support that 
vision, the LMP will integrate with other Army ERPs, including General 
Funds Enterprise Business System (GFEBS), and Global Combat Support 
System-Army (GCSS-A), to provide a seamless enterprise-wide logistics 
environment spanning the factory to the foxhole in accordance with the 
approved Army ERP Strategy.
    Question. Paladin Integrated Management Vehicle program.
    Answer. I understand that the Paladin Integrated Management (PIM) 
program is an effort to address an existing capability gap in the self-
propelled artillery portfolio brought about by an aging fleet and the 
termination of prior howitzer modernization efforts [Crusader and Non-
Line-of-Sight-Cannon (NLOS-C)]. The PIM program provides upgrades that 
allow the Army to meet existing and future needs, and leverages the 
commonality with the Bradley Fighting Vehicle chassis and automotive 
components. PIM should provide growth potential in Space, Weight and 
Power and capacity for network expansion to accommodate future howitzer 
related needs, to include the addition of such Force Protection 
packages as add-on armor.
    Question. M4 Carbine Upgrades/Individual Carbine Competition.
    Answer. The Army continues to make improvements and upgrades based 
on operational lessons learned through the M4 Product Improvement 
Program. The Army's effort is designed to integrate full automatic 
firing, an ambidextrous selector switch and a more durable ``heavy'' 
barrel. Simultaneously, the Army has initiated a full and open 
competition to confirm the best possible Individual Carbine solution. 
Results of the competition are expected in fiscal year 2013.
            mine resistant ambush protected (mrap) vehicles
    Question. If confirmed, what would you propose should be the Army's 
long term strategy for the utilization and sustainment of its large 
MRAP and MRAP-All Terrain Vehicle fleets?
    Answer. The Army needs to continue to provide the best level of 
protection for our deploying soldiers. Given what we have learned 
during the last 10 years, I believe we should attempt to provide MRAP 
levels of protection to deploying forces worldwide commensurate with 
the mission assigned. The Army will integrate MRAPs into the force.
                       quadrennial defense review
    Question. The 2010 report of the Quadrennial Defense Review (QDR) 
provides guidance that military forces shall be sized to prevail in 
ongoing conflicts in Afghanistan, Iraq, and the war against al Qaeda as 
well as for conducting foundational activities that prevent and deter 
attacks or the emergence of other threats.
    What is your assessment of the Army's current size and structure to 
meet the QDR report's guidance?
    Answer. The Army's size and structure have proven adequate to meet 
the demands of our defense strategy as we know them today, although a 
very heavy demand has been placed upon soldiers and their families for 
nearly 10 years. If confirmed, I would work closely with the Secretary 
of Defense, the Secretary of the Army, the Chairman of the Joint 
Chiefs, and our combatant commanders to match end strength, structure, 
and tempo in our ARFORGEN rotational model to meet demands as they 
change.
    Question. If confirmed, what size or structure changes would you 
pursue, if any, to improve or enhance the Army's capability to meet 
these requirements?
    Answer. The nature of the strategic environment requires the Army 
to continuously assess its capabilities and force requirements. It's 
taken 10 years to achieve a size, structure, and capability that we can 
reasonably describe as balanced. We are accustomed to change, and we 
will undoubtedly need to continue to change. As we do we must seek to 
maintain a balance of capabilities that are available to meet the 
Nation's needs at a sustainable tempo.
    Question. The QDR report particularly emphasizes the requirement 
for improved capabilities in the following six key mission areas.
    For each, what is your assessment of the Army's current ability to 
provide capabilities to support these mission requirements?
    If confirmed, what changes, if any, would you pursue to improve the 
Army's capabilities to support:
    Defense of the United States.
    Answer. The Army is fully capable of fulfilling its responsibility 
to defend the homeland through detection, deterrence, prevention, and 
if necessary, the defeat of external threats or aggression from both 
state and non-state actors. A specific program recently undertaken to 
enhance this ability include the fielding of the enhanced Stryker 
Nuclear Biological and Chemical Reconnaissance Vehicle. This provides 
us with a much improved technical assessment and decontamination 
capability.
    Question. Support of civil authorities at home.
    Answer. The Army is well postured to provide support to civil 
authorities. We are organized and trained to provide responsive and 
flexible support to mitigate domestic disasters, CBRNE consequence 
management, support to civilian law enforcement agencies, counter WMD 
operations and to counter narcotics trafficking activities. We continue 
to address the challenges associated with this mission set including 
unity of command, integration with civilian authorities, and the 
integration of Title 10 and Title 32 forces.
    Question. Succeed in counterinsurgency, stability, and 
counterterrorism operations.
    Answer. We are highly proficient in counter insurgency, stability 
and counter-terrorism operations. This has been the focus for the Army 
for much of the last 10 years and we have institutionalized lessons 
learned across the operating and generating force.
    Question. Build the security capacity of partner states (including 
your views, if any, on the use of general purpose forces in the 
security force assistance role).
    Answer. General Purpose Forces have a clear role in building 
sustainable capability and capacity of partner nation security forces 
and their supporting institutions. Peace time engagement is our best 
opportunity to shape the future operating environment. General Purpose 
Forces are well-suited to support these activities through Security 
Force Assistance.
    Question. Deter and defeat aggression in anti-access environments.
    Answer. The Army's ability to deter and defeat aggression in anti-
access environments as part of the joint force is adequate to meet the 
demands of the current security environment. That said, there are some 
tasks and skills to which we have not trained due to the demands of our 
ongoing conflicts. We must restore our proficiency in those tasks. We 
work with our sister Services to assess our capabilities to conduct 
entry operations as part of the joint force and watch closely the 
improved anti-access/area denial capabilities being developed by 
potential adversaries.
    Question. Prevent proliferation and counter weapons of mass 
destruction.
    Answer. The Army provides highly trained and ready forces with 
capabilities to support combatant commander requirements to counter the 
proliferation of weapons of mass destruction. Current capabilities 
include operating effectively within a chemical, biological, 
radiological, and nuclear environment, specialized teams to locate and 
neutralize weapons of mass destruction (WMD), and an operational 
headquarters with expertise in eliminating WMD.
    Question. Operate effectively in cyberspace.
    Answer. We are on the right glide path to support U.S. Cyber 
Command and our geographic combatant commanders to operate effectively 
in cyberspace. On 1 October 2010, the Army stood up a new three star 
command (U.S. Army Cyber Command/2nd Army), to direct the operations 
and defense of all Army networks, and when directed, provide full-
spectrum cyberspace operations. The Army is bringing the forces of 
network operations, defense, exploitation, and attack under one 
operational level command to integrate and synchronize global 
operations for the first time.
                            missile defense
    Question. The Department of Defense recently decided to terminate 
the Army's Surface-Launched Advanced Medium-Range Air-to-Air Missile, 
and not to proceed with procurement and fielding of the tri-national 
Medium Extended Air Defense System, two Army air and missile defense 
systems.
    Do you consider missile defense to be one of the Army's core 
missions?
    Answer. Yes. The Army has confirmed on many occasions that Air and 
Missile Defense is a core competency. Protection of our deployed forces 
is the priority. The Army provides this protection in coordination with 
our sister Services and coalition partners.
    Question. How do you believe the Army should manage the risks that 
result from these decisions?
    Answer. I believe the Army needs to continue to monitor the threat 
and prioritize required future capabilities to ensure we provide 
effective affordable solutions in a timely manner to our forces.
    Question. The Army has recently proposed transferring a number of 
its air and missile development programs to the Missile Defense Agency 
(MDA).
    In your view, what is of the proper relationship between the Army 
and the Missile Defense Agency?
    Answer. It is my understanding that the Army relies on the MDA to 
develop and produce the Ballistic Missile Defense System (BMDS). The 
Army works with MDA to provide those BMDS capabilities to the combatant 
commanders. The Army maintains a relationship with MDA through the 
Army/MDA Board of Directors and its four standing committees.
    Question. The Army has recently completed a review of its air and 
missile defense portfolio.
    In your view, what are or should be the Army's responsibilities, if 
any, with respect to development, procurement, and operation of missile 
defense systems?
    Answer. The Army's responsibilities depend on the type of missile 
defense system being developed and guidance from the Office of the 
Secretary of Defense.
           protection of u.s. forces against internal threats
    Question. One year ago, 13 people were slain and scores wounded 
during a shooting rampage allegedly carried out by a U.S. Army Medical 
Corps officer. A Department of Defense review of the attack concluded 
that the Department was poorly prepared to defend against internal 
threats, including radicalization of military personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. The lessons learned are invaluable to the Army as we strive 
to improve the Army Protection Program for individuals and units 
against emerging threats. Through a holistic Protection approach, the 
Army is aggressively fielding material and nonmaterial solutions to 
address internal and external threats.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. If confirmed, I will ensure that we continue to integrate 
and synchronize the many Army Protection Programs that protect our 
soldiers, family members, and Department of the Army civilians by 
ensuring that commanders and leaders have the information and tools 
needed to address the ever changing threat environment.
                          religious guidelines
    Question. The DOD Independent Review Related to Fort Hood observed 
that ``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization'' and recommended that the policy be updated.
    What is your view of the need to clarify the policy regarding 
religious accommodation in the Army?
    Answer. The policies for religious accommodation in the Army are 
published in AR 600-20, Army Command Policy. The policy must be clear 
and provide appropriate guidance to both soldiers and commanders 
regarding how the Army accommodates for religious beliefs and 
practices. To this end, if confirmed, I will assess the current policy 
and determine if further changes are necessary.
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the Army?
    Answer. Your question raises a valid concern. However, the Army is 
a diverse force. As soldiers in the profession of arms, we understand 
the key role that good order, discipline, morale, and safety have in 
ensuring units are at all times ready to defend this nation. The Army 
has long been a place where people from all walks of life can serve 
proudly and where the many become one--a U.S. Army soldier.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
Army?
    Answer. The Army has a longstanding commitment to treat all 
soldiers with dignity and respect. Treating soldiers with dignity and 
respect requires continuous leader emphasis and vigilance.
    Question. Do Army policies regarding religious practices in the 
military accommodate, where appropriate, religious practices that 
require adherents to wear particular forms of dress or other articles 
with religious significance?
    Answer. Regulations regarding wear of religious clothing or items 
are found in two regulations (AR 600-20, Army Command Policy and AR 
670-1, Wear and Appearance of Army Uniforms and Insignia). The policy 
provides the authority to wear religious jewelry, apparel or articles 
if they are neat, conservative, and discreet and compliant with these 
regulations.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. In my opinion, current Army policies provide commanders 
with adequate flexibility to balance accommodation for religious 
beliefs and maintain good order and discipline.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. The Army does not have a policy regarding public prayer by 
military chaplains. As a matter of practice, however, chaplains are 
encouraged to be considerate of the audience.
                             family support
    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality of life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. In my view the most pressing family readiness issues 
include sustaining the Army Family Covenant and improving communication 
and awareness of the extensive range of available support programs and 
services the Army has to improve soldier and family quality of life.
    In 2007, the Army Family Covenant was unveiled to improve quality 
of life by providing programs and services that enhance soldier and 
family strength, readiness, and resilience. Since then, the Army has 
made great progress and continues to fulfill its commitment to provide 
soldiers and families a quality of life commensurate with the quality 
of their service.
    The Army Family Action Plan, Survey of Army Families, and other 
studies revealed that soldiers and families may not be aware of the 
myriad of available support services. To address this concern, the Army 
is transforming Army Community Service (ACS) to help connect soldiers 
and families to the right service at the right time. This 
transformation will create a more streamlined and modular support 
structure that better supports our modular Army at every installation. 
The Army has begun piloting ACS transformation and anticipates 
completion by October 2011.
    The Army has made great progress in building a wide range of 
support capabilities over the last few years, but the strain on the 
force continues. If confirmed, I will continue to strengthen our 
support services and ensure our programs efficiently meet the needs of 
the soldiers and families who use them.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, and lengthy deployments?
    Answer. If confirmed, I will endeavor to ensure that Army Family 
programs reach out to all soldiers and their families, regardless of 
geographic location or deployment status. I will also work to ensure 
that family program platforms and delivery systems keep pace with a 
mobile Army and utilize technological advances and social networking so 
services are available to the soldiers and families who need them.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active duty families who do not reside near a 
military installation?
    Answer. I am committed to ensuring soldiers and families remain 
connected to Army Family services and programs, whether by internet, 
telephone, or in person regardless of geographic location or Component. 
Army OneSource (www.MyArmyOneSource.com) is the website of choice for 
information on Army Family programs and services. Army OneSource 
highlights Active and Reserve Component Family Programs, is publicly 
accessible, and thus available to all components and immediate and 
extended family members.
    The State Joint Force Headquarters is the platform for support of 
geographically dispersed servicemembers and families. This platform 
projects the Joint Family Support Assistance Program resources, ARNG 
Family Assistance Centers (FACs), ARNG Family Readiness Support 
Assistants, and the ARNG Child and Youth program in support of Reserve 
component families and Active component families that do not reside 
near the installation. Additionally, Army sponsored programs including 
Operation Military Kids and Community Based Child Care and Respite Care 
programs build community capacity for the geographically dispersed Army 
population. These programs offer similar services and assistance to 
geo-dispersed Reserve component families as would be available on 
installations and are connected to local resources that soldiers and 
families are eligible to use.
                                 space
    Question. The Army Space support to Strategic Command works closely 
with Air Force Space Command in getting space based communications to 
the warfighter. Recently the Army has begun to look at the possibility 
of expanding the scope of data that could be provided to the last 
tactical mile from space.
    In your view, what are the needs that the Army could address from 
space, and, if confirmed, how would you ensure that this is coordinated 
with OSD?
    Answer. While I am not yet in a position to provide an informed 
assessment, I understand that the importance of space programs 
continues to increase across DOD, and the Army needs to keep pace to 
fully leverage capabilities and ensure that space systems are 
appropriately prioritized within both DOD and the Department of the 
Army.
    Question. If confirmed, what would be your vision for the Army 
space forces in the future?
    Answer. While I am not yet in a position to provide an informed 
assessment, one of my priorities, if I am confirmed, is to position the 
Army to keep pace to fully leverage capabilities and ensure that space 
systems are appropriately prioritized and resourced.
    Question. The Army, as do all the Services, tends to lag behind in 
the acquisition of ground and other terminals to work with new 
satellite systems. Acquisition of GPS M-code capable equipment is just 
one example of where there is needed capability on orbit but terminals 
will not be available in a timely fashion to utilize the capability.
    What is your view on this lag and, if confirmed, what actions would 
you propose taking to resolve the lag?
    Answer. If confirmed, I would need to examine this issue more 
closely. While I understand that all of the Services have specific 
requirements to meet specific needs for their forces and that the Army 
depends heavily on these systems, I am not yet in a position to provide 
an informed assessment.
                     low density/high demand forces
    Question. If confirmed, how would you address the Army's management 
of low density units such as Special Operations Forces, military 
police, civil affairs, and others which are in extremely high demand in 
this new strategic environment?
    Answer. If confirmed, I would use the Total Army Analysis (TAA) to 
identify the capabilities necessary, within resource constraints, to 
achieve the full spectrum of missions expected of the Army. When 
requirements for additional low density/high demand capabilities are 
identified through this process, they are resourced within acceptable 
risk. This process will help determine where these capabilities should 
reside: the Active component, the Reserve component, or a mix of both. 
The Army balances the inventory of these low density units to ensure 
availability of an affordable mix of flexible forces capable of 
accomplishing the missions required within the most likely security 
environment.
    Question. Are there functional changes among the Active and Reserve 
components that you believe should be made?
    Answer. I am not yet aware at this time of any changes that may be 
necessary.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness monitoring, errors 
caused by antiquated pay systems, limited transition assistance 
programs upon demobilization, and lack of access to members of the 
Individual Ready Reserve (IRR). Reserve Force management policies and 
systems have been characterized in the past as ``inefficient and 
rigid'' and readiness levels have been adversely affected by equipment 
stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Army Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. I understand the Army is currently reviewing all of its 
mobilization policies to ensure that the systems in place are effective 
and responsive for Reserve component soldiers. I believe Reserve 
components are a critical part of the Total Force, and if confirmed, I 
will continue the effort to ensure that Reserve component soldiers are 
mobilized and demobilized in the most effective and efficient way 
possible and that their needs and the needs of their families and 
employers are met.
    Question. What is your understanding and assessment of the 
sufficiency of current Reserve Force management policies?
    Answer. As I understand current Reserve Force management policies, 
the goal is to manage the force to produce a supply of units to the 
combatant commanders with a short-term goal of 1 year of mobilization 
every 5 years with a long-term goal of 1 year of mobilization every 6 
years. The challenge the Army has faced has been that demand has been 
greater than the supply and has caused the need for more frequent 
mobilizations. As operations in Iraq and Afghanistan start to draw-
down, the Army should be better able to attain the mobilization to 
dwell goals.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. The Army Force Generation Model fundamentally changes the 
way the Army builds unit readiness for mobilization requirements. The 
ARFORGEN model presents a structured progression of readiness through a 
multi-year long cycle.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. At present, I am not aware of a need to modify current 
statutory authorities to facilitate mobilization of the National Guard 
and Reserves. If confirmed, I will work with Secretary McHugh to review 
the statutory authorities to determine if they are sufficient.
                        individual ready reserve
    Question. The Commission on the National Guard and Reserves has 
found that accessing the IRR as a viable source of manpower for the war 
was problematic, and that using the IRR as a solution for unit manning 
is a failed concept.
    What is your assessment of the value of the IRR to the All-
Volunteer Force?
    Answer. I believe the IRR has proven an invaluable asset to all 
Army components to support contingency operations around the world.
    Question. What are your views on the proper role of the IRR in Army 
force management planning?
    Answer. The IRR can serve as a source of experienced and highly-
skilled soldiers to help the Army meet critical skill and grade 
requirements.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Army's IRR recall policy?
    Answer. At this time, I do not have sufficient information to 
recommend changes to this policy. If confirmed, I will consider input 
from all components to determine the best IRR recall policy.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to active duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the Army's decision on that request?
    Answer. While this is an important part of the IRR mobilization, I 
do not have sufficient familiarity with this policy to recommend 
changes.
    Question. Recent studies of Army suicides show higher rates among 
the IRR.
    What should the Army and DOD do to address this concern?
    Answer. Suicides in the IRR are often more difficult to address 
because those soldiers are not affiliated with a unit. If confirmed, I 
will consider all methods to integrate IRR soldiers into the Army's 
Health Promotion/Risk Reduction efforts.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues its steep upward growth and is becoming 
an ever increasing portion of the DOD budget.
    If confirmed, what actions would you take to control the rise in 
the Army's personnel costs and entitlement spending?
    Answer. We need to strike a balance between preserving the All-
Volunteer Force, accomplishing operational missions and retraining an 
Army that is affordable to the Nation. If confirmed, I will work with 
the Secretary of the Army and the Secretary of Defense on how best to 
achieve it.
    Question. If confirmed, what actions would you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. My understanding is the President's budget is adequate to 
meet current personnel costs.
    Question. What would be the impact of a year-long continuing 
resolution on Army personnel funding?
    Answer. If the Army is given the flexibility to manage total 
resources (both Base and Overseas Contingency Operations (OCO) funds) 
to pay its force, then fiscal year 2011 continuing resolution will have 
minimal impact on military pay and allowances.
 medical and dental readiness of army national guard and army reserve 
                               personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. I believe the Army should develop and resource mechanisms 
to routinely identify screen and assess Reserve component medical 
readiness. If confirmed, I will work with Secretary of the Army, the 
Chief of Army Reserves, the Director of the Army National Guard, and 
the Surgeon General to develop policies for more effectively 
identifying personnel that are nondeployable for medical reasons.
    Question. How would you improve upon the Army's ability to produce 
a healthy and fit Reserve component?
    Answer. This is a very important issue, and I will work with the 
Army's Active and Reserve component leadership to assess whether there 
are challenges in this area. The Army is moving forward with a 
Comprehensive Soldier Fitness Program. If confirmed, I would determine 
how this program applies to Reserve component and National Guard 
soldiers.
                      army science and technology
    Question. What do you see as the role that Army science and 
technology programs will play in continuing to develop capabilities for 
current and future Army systems?
    Answer. It is my understanding that the Army's science and 
technology investment strategy is shaped to foster invention, 
innovation, and demonstration of technologies for the current and 
future warfighter. The science and technology program should retain the 
flexibility to be responsive to unforeseen needs identified through 
current operations.
    Question. What in your view have been the greatest contributions, 
if any, of Army science and technology programs to current operations?
    Answer. I believe the most significant contribution the Army 
science and technology community has offered to current operations is 
the ability to use technology to significantly improve warfighter 
capabilities. Technological innovations have resulted in the rapid 
development and deployment of lightweight and adaptable Armor solutions 
that have been critical to addressing emerging threats, enhancing 
intelligence capabilities, and better protecting our deployed forces.
    Question. What metrics would you use, if confirmed, to judge the 
value and the investment level in Army science and technology programs?
    Answer. To judge the value and investment level in Army science and 
technology programs, I would use metrics that demonstrate improved 
warfighter capabilities; improve acquisition programs; and align 
technology development to warfighter requirements.
    Question. What new science and technology areas do you envision the 
Army pursuing, for instance to lighten soldier load, and to improve the 
survivability and combat effectiveness of dismounted soldiers and 
ground vehicles?
    Answer. If confirmed, I will engage the Army's science and 
technology program and its stakeholders, including the acquisition 
community, Training and Doctrine Command and the combatant commanders 
to discuss the needs of the warfighter and the ``art of the possible'' 
for future technology-enabled capabilities to ensure the Army remains 
the best equipped force in the world.
  army laboratories and research, development and engineering centers
    Question. How will you balance the role of Army laboratories 
between long-term fundamental research, support to current operations 
and the development of new capabilities to support current and future 
Army missions?
    Answer. The Army laboratories are science and technology performing 
organizations and as such have and will continue to play a major role 
in supporting current operations with best capabilities available. 
Through their broad range of investments in key strategic science and 
technology areas, they also provide critical new capabilities for 
soldiers.
    Question. If confirmed, how will you ensure that the Army 
laboratories and R&D centers have the highest quality workforce, 
laboratory infrastructure, resources, and management, so that they can 
continue to support deployed warfighters and develop next generation 
capabilities?
    Answer. Army laboratories and Research and Development Centers need 
to maintain the resources required to continue initiatives and 
advancements that support the warfighter. If confirmed, I will learn 
more about their operations and support efforts to improve best 
practices and workforce quality necessary for mission accomplishments.
                    army test and evaluation efforts
    Question. In the past, the DOD Test Resource Management Center did 
not certify the Army's test and evaluation (T&E) budget due to 
identified shortfalls in T&E range sustainment, operations, and 
modernization.
    If confirmed, how will you ensure that the Army's T&E 
infrastructure is robust enough to test new systems and technologies 
and reliably verify their combat effectiveness and suitability?
    Answer. Testing is a crucial capability for maintaining the Army's 
combat edge and modernizing the force. I fully recognize the value of 
testing to ensure new technologies and equipment address the 
capabilities our warfighters need. If confirmed, I will work closely 
with the Army T&E community and the Office of the Secretary of Defense 
T&E leadership to ensure the Army's T&E infrastructure is adequately 
resourced to address testing requirements and maintain robust test 
capabilities.
               army information technology (it) programs
    Question. What major improvements, if any, would you like to see 
made in the Army's development and deployment of major information 
technology systems?
    Answer. I believe the Army needs to implement and enforce technical 
standards, make acquisition of commercial off-the-shelf (COTS) or near-
COTS technology easier, and field new technology to operational forces 
more quickly. This is in line with the congressional mandate you gave 
us in section 804 of the 2010 NDAA.
    As Commanding General for Training and Doctrine Command, I helped 
establish a center for network integration at Fort Bliss, TX--the Army 
Evaluation Task Force (AETF). It will serve as the Network's primary 
test unit with a two-fold intent, to remove the integration burden from 
the operational units and to provide an operational venue to evaluate 
new technologies and network capabilities prior to fielding to 
operational units. The new capabilities they develop should ultimately 
provide the impetus for future acquisition and equipping decisions.
    Question. How will the consolidation of IT systems announced under 
Secretary Gates efficiency initiative reduce the IT support cost per 
user to the Army?
    Answer. I understand the two primary Army initiatives that fulfill 
Secretary Gates' mandate are Enterprise Email and consolidation of Army 
data centers. Implementation of these initiatives should help reduce 
the cost of information technology support to the Army.
                         human terrain systems
    Question. What is your understanding of the Army's plans to 
institutionalize the Human Terrain System (HTS) program? Given the 
proliferation of such capabilities across the Services, what are your 
views, if any, on developing a joint HTS capability?
    Answer. The Army has institutionalized the Human Terrain System as 
an enduring capability assigned to Training and Doctrine Command and 
funded capability starting in the fiscal year 2011. I believe there is 
merit to developing a joint capability. In September 2010, I directed a 
Training and Doctrine Command capability based assessment of all Socio-
cultural capabilities throughout the combatant commands and Services. 
The intent is to identify other ongoing socio-cultural initiatives, to 
determine potential synergies and best practices in order to develop 
and evolve an enduring joint capability. The results of this assessment 
are due in the spring of 2011.
                           operational energy
    Question. Prior to and since the creation of the Assistant 
Secretary of Defense for Operational Energy Plans and Program, a number 
of the Services have made progress addressing concerns associated with 
operational energy. The Army has announced its operational energy 
aspirations for the future but, unlike the other Services, the Army's 
five strategic energy security goals appear vague and lack quantitative 
metrics against which to measure progress.
    If confirmed, how would you propose that the Army address its 
operational energy challenges, requirements, and opportunities in the 
immediate short-term?
    Answer. The most important issue with operational energy is the 
amount of fuel used to meet our operational needs. Most of our fuel is 
used in generation of electricity. The Army has implemented, and 
accelerated deployment, of generators that use less fuel as well as 
microgrid systems that tie generators together to operate more 
efficiently. We are developing more efficient motors for helicopters 
and vehicles to reduce our operational energy footprint and, 
ultimately, wars are won or lost by dismounted soldiers, so the Army is 
addressing excessive soldier loads, driven in large part by energy and 
power constraints. As the Commanding General of the Army Training and 
Doctrine Command, I'm a charter member of the Army's Senior Energy and 
Sustainability Council, which is responsible for addressing energy 
challenges across the Army. If confirmed I will continue efforts 
currently underway to increase our energy efficient capabilities in 
theater and emphasize energy awareness through the military chain of 
command, and across the Army, to foster a more energy-aware culture.
    Question. What is your understanding of the Army's progress with 
respect to testing and deploying operational energy technologies?
    Answer. The Army is taking advantage of every avenue, to include 
industry, to help us develop technologies that can reduce our 
operational energy footprint. Renewable energy systems and insulated 
tentage are some of the systems being piloted and tested. We are also 
evaluating technologies that will help lighten soldier loads and reduce 
the amount of batteries and fuel we must procure and deliver to 
theater. We will continue to pursue more efficient devices and employ 
energy management capabilities that are essential to retain energy as 
an operational advantage.
    Question. What is your understanding of how the Army is taking 
advantage of its labs and research, engineering and development centers 
to further its operational energy and security goals?
    Answer. The Army has integrated the national laboratories with 
Department of Energy and Army laboratories to develop solutions to a 
range of operational energy, power and security needs. Some of the 
initiatives include research to reduce the size and weight of 
components, broadening alternative energy sources, leveraging various 
emergent energy efficient technologies. These new technologies will 
increase energy efficiency and improve power supplies for contingency 
bases, forward operating bases and equipment carried by individual 
soldiers. If confirmed I will work to ensure that the research 
conducted at Army facilities continues to focus on meeting the 
operational energy needs of the current and future Army.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military Services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Army infrastructure investment?
    Answer. Since fiscal year 2007, with BRAC, Transformation, and Grow 
the Army initiatives, the Army has made significant MILCON investments 
in its infrastructure. If confirmed, I will work with the Assistant 
Secretary of the Army, Installation, Energy and Environment, and the 
Commanding General at Installation Management Command to assess our 
infrastructure investments.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. Proper stewardship of our facilities portfolio requires the 
Army to fully sustain the current facilities, dispose of our excess 
facilities, improve the quality of our worst facilities and build-out 
our largest and most critical shortages, all at a level adequate to 
support the mission.
    If confirmed, I will evaluate the proper balance of funding, to 
include evaluating whether the Army should increase operation and 
maintenance funding for restoration and modernization and Demolition.
             army policies regarding drug and alcohol abuse
    Question. What is your understanding of the Army's policy with 
respect to disciplinary action and administrative separation of 
soldiers who have been determined to have used illegal drugs? Do you 
agree with this policy?
    Answer. Army policy directs commanders to initiate administrative 
separation for all soldiers involved in trafficking, distribution, 
possession, use, or sale of illegal drugs. While the policy requires 
initiation of separation, commanders have the authority to retain or 
separate a soldier.
    I concur with this policy.
    Question. What is your understanding of the Army's policy with 
respect to rehabilitation and retention on active duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. Army policy requires that the separation authority consider 
a soldier drug offender's potential for rehabilitation and further 
military service. For this reason, soldiers who commit drug and alcohol 
offenses are required to be evaluated by a certified substance abuse 
counselor through the Army Substance Abuse Program (ASAP). Commanders 
consider the recommendation of ASAP counselors when determining a 
soldier's potential for rehabilitation and retention.
    I concur with this policy.
    Question. Do you believe that the Army has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways?
    Answer. My personal experience at various command levels since 2001 
has been that the Army devotes sufficient resources to implement these 
objectives. If confirmed, I will assess and closely monitor the level 
of resourcing for this important area.
    Question. What measures are being taken to improve the Army's 
performance in responding to problems of drug and alcohol abuse?
    Answer. Army policy requires a comprehensive approach by 
commanders, law enforcement and the medical community for drug and 
alcohol abuse. The Army is working diligently to improve its 
surveillance, detection, and intervention systems for drug and alcohol 
abuse.
    The Army investigates all reported drug and alcohol incidents to 
assist commanders in properly adjudicating the offense. The Army is 
also enhancing detection capabilities through the Drug Suppression 
Teams.
    The Army is also working to improve intervention systems. In 
addition to increasing the number of ASAP counselors to accommodate the 
increasing demand, the Army continues to expand the Comprehensive 
Soldier Fitness program to build resiliency in the force. The Army is 
also conducting the Confidential Alcohol Treatment and Education Pilot 
program at six installations to promote help seeking behavior by 
allowing soldiers to confidentially seek help for alcohol problems.
               medical personnel recruiting and retention
    Question. The Army continues to face significant shortages in 
critically needed medical personnel in both Active and Reserve 
components.
    What is your understanding of the most significant personnel 
challenges in recruiting and retaining health professionals in the 
Army?
    Answer. There continues to be a national shortage of medical 
professionals that challenges the Army's efforts to recruit and retain 
health care professionals. The Army competes with governmental and non-
governmental agencies, as well as private health care organizations to 
attract and retain the most skilled and talented health care providers, 
in a uniformed or civilian capacity. The Army continues to evaluate 
initiatives to provide more flexibility to allow the Army to adequately 
compete in these areas.
    Question. If confirmed, would you undertake a comprehensive review 
of the medical support requirements for the Army, incorporating all new 
requirements for 2011 and beyond?
    Answer. I believe it is important to review medical support 
requirements on a regular, recurring basis. With that in mind, if 
confirmed I will assess whether the Army should undertake a 
comprehensive review of the medical support requirements for the Army.
    Question. If confirmed, what policies or legislative initiatives, 
if any, are necessary in order to ensure that the Army can continue to 
fulfill ongoing medical support requirements?
    Answer. Given the policy initiatives currently underway and the 
changes implemented by the National Defense Authorization Act for 
Fiscal Year 2011 at this time, I do not believe additional legislative 
authorities are needed to ensure that the Army fulfills medical support 
requirements. If confirmed, I will closely monitor this area and will 
work closely with the administration and Congress to seek any 
additional authorities identified as necessarily to maintain this goal.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
the Department of Defense in March 2005, directed a series of actions 
aimed at transforming the Department's foreign language capabilities to 
include revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your assessment of the progress the Army has made in 
increasing its foreign language capabilities in operations in Iraq and 
Afghanistan?
    Answer. As Commanding General for the Training and Doctrine 
Command, I witnessed a tremendous increase in foreign language 
capabilities in support of OIF/OEF. The Army revolutionized its 
recruiting processes to enlist native and heritage speakers into vital 
interpreter/translator positions. Pre-deployment training for the 
General Purpose Force Soldiers and Civilians has transformed to include 
Afghanistan/Pakistan Hands Program, Language Enabled Soldiers training, 
the Rapport Program, and other Soldiers and Civilians with Culturally 
Based Language Training. The Reserve Officer Training Corps has 
introduced a very successful Culture and Language Program, which 
provides incentives and immersion opportunities for cadets who take 
foreign language and related cultural studies. Overall, these 
initiatives have provided enhanced capabilities for counterinsurgency 
operations and building partner capacity overseas.
    Question. In your view, what should be the priorities of the 
Department of Defense, and the Army in particular, in responding to the 
need for improved foreign language proficiency and improving 
coordination of foreign language programs and activities among Federal 
agencies?
    Answer. In my opinion, one of the highest priorities for the 
Department of Defense should be the continued support of the Defense 
Language Institute Foreign Language Center, which provides Culturally 
Based Language Training to all Services and Department of Defense 
Components. With the increasing demand for Pashto and Dari instructors, 
and foreign language professionals in general, the Department of 
Defense must coordinate with Federal agencies to ensure best practices 
are shared to recruit and retain personnel with these critical skills.
                      mental health advisory teams
    Question. The Army's Mental Health Advisory Team (MHAT) studies in 
Iraq and Afghanistan have been valuable in identifying the extent of 
mental health conditions and resource and training challenges being 
experienced in combat theaters. The most recent report, MHAT VI, stated 
that multiple deployments were related to higher rates of acute stress 
and psychological problems, that servicemembers on their third and 
fourth deployment ``reported using medications for psychological or 
combat stress problems at a significantly higher rate,'' and that 
``soldiers with short dwell-time report high mental health problems, 
high intent to leave the military and low morale.''
    Based on the findings of MHAT VI that soldiers experience increased 
stress due to multiple deployments and short dwell time, what actions 
would you take, if confirmed, to ensure that appropriate mental health 
resources are available to soldiers in theater, as well as upon their 
return?
    Answer. The MHAT studies play a key role in proactively identifying 
how changes in the operational environment impact the ability to 
provide behavioral health care. Since OEF MHAT VI, the number of 
behavioral health personnel in theater was significantly increased to 
improve the ratio of behavioral health specialists to soldiers. 
Specifically, the MHAT team recommended one behavioral health personnel 
should be deployed for every 700 soldiers, and this ratio was met. 
Second, the MHAT team recommended a redistribution of behavioral health 
personnel to ensure that each BCT had one additional dedicated provider 
to augment their organic provider. This ``dual provider'' model was 
designed to ensure that a provider would be available to travel to 
remote outposts to see soldiers who had limited access to the larger 
Forward Operating Bases. If confirmed, I will ensure that the Army 
continues to develop and synchronize the expeditionary components of 
health promotion, risk reduction, and suicide prevention programs and 
services.
    Question. What do you think have been the most valuable findings of 
the Army's Mental Health Advisory Teams, and what are the lessons which 
can be applied to future deployments?
    Answer. One of the most valuable findings from the MHATs has been 
to document that soldiers on multiple deployments report higher mental 
health problems. This finding was first observed in 2005 (MHAT III), 
and has been replicated in every subsequent MHAT. Another valuable 
finding noted in the question was the observation that mental health 
problems are related to dwell-times. Specifically, short dwell-times 
are associated with a heightened increase in reports of mental health 
problems. Other key findings include the observation that deployment 
length is strongly associated with reports of mental health problems 
and deployments have put a strain on marital relationships. Overall, 
the willingness to take a systematic look at the behavioral health care 
system and the behavioral health status of soldiers through programs 
such as the MHATs has ensured that the Army is being responsive to the 
needs of deployed soldiers to include refining behavioral health care 
delivery models.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving soldiers in 
Iraq, Kuwait, and Afghanistan have been reported over the last several 
years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
Army failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their charges 
and, ultimately, appropriate disciplinary action.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of sexual assaults 
the medical, psychological, and legal help that they need?
    Answer. I am very concerned about reports of sexual assault 
anywhere in our Army but especially in deployed locations. We cannot 
tolerate this behavior wherever it occurs. While the deployed theatres 
pose special challenges, the Army is committed to providing victims in 
deployed units with appropriate medical care, resources and support. 
The Army has taken a number of significant steps to improve the 
assistance to victims of sexual assault, including enhanced recognition 
of the special circumstances posed by deployed soldiers. The Army's 
Sexual Harassment Assault Response and Prevention (SHARP) Program 
includes medical, advocacy, chaplain, investigative and legal services. 
This program requires every brigade sized unit to appoint and train a 
deployable sexual assault response coordinator and every battalion to 
appoint and train unit victim advocates.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults at deployed locations as well as 
home stations?
    Answer. In 2008, the Army implemented its I. A.M. (Intervene, Act, 
Motivate) Strong Sexual Assault Prevention Campaign. The campaign 
includes strategic, operational and tactical level execution of the I. 
A.M. Strong Campaign, with heavy emphasis on soldiers' commitment to 
intervene and protect their fellow soldiers from the risk of sexual 
assault and from the risk of sexual harassment. The campaign places 
additional emphasis on establishing a command climate that deters 
sexual harassment and assault.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. While increasing emphasis to prevent sexual assaults before 
they occur, the Army continues to emphasize victim services and 
response capabilities, to include enhancements to investigation and 
prosecution resources.
    The SHARP Program is a great start to managing strategies, policies 
and resources necessary to adequately prevent and respond to incidents 
of sexual assault. This is a challenging problem that will require 
leadership and constant vigilance at all levels.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Prior to implementation of the I. A.M. Strong Prevention Campaign, 
the focus of the Army program was primarily on victim response. Part of 
that response focus was the implementation of confidential reporting, 
or restricted reporting, which is an effective way to allow a victim to 
come forward and have their personal needs met without fear that may be 
associated with a criminal investigation. If confirmed, I will continue 
to look closely at the Army's sexual assault program.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Getting victims to trust the system and come forward can be 
challenging; however, I am not aware of any specific problems with the 
current reporting procedure. Confidential reporting, or restricted 
reporting, allows a victim to come forward and have their personal 
needs met without fear that may be associated with a criminal 
investigation.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Army staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Perhaps the most important role of any Senior Army Leader 
is to ensure there is an adequate assessment of an organizational 
climate, where such behavior is not tolerated and where victims feel 
free to report incidents without fear of reprisal.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I will have an active role in the oversight 
and implementation of the Army's Sexual Harassment/Assault Response and 
Prevention (SHARP) Program. I will work with the Secretary and the Army 
leadership to ensure the Army's SHARP program continues to receive the 
appropriate level of supervision, guidance, and support needed to 
drastically reduce incidents of this unacceptable crime.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel, and their eligible family 
members.
    What challenges do you foresee in sustaining and enhancing Army MWR 
programs and, if confirmed, what improvements would you seek to 
achieve?
    Answer. The Army has taken steps to ensure we care for and retain 
Families through a broad range of meaningful initiatives, to include 
many family and MWR programs and services. In October 2007, the Army 
leadership unveiled the Army Family Covenant, which institutionalized 
the Army's promise to provide soldiers and their families with a 
quality of life that is commensurate with their service to the Nation. 
The Soldier Family Action Plan provided the original roadmap to 
implement the Army Family Covenant, and includes such important 
programs as Soldier Family Assistance Centers, Survivor Outreach 
Services, improved services to the geographically dispersed, 
Exceptional Family Member respite care, Army OneSource, Child, Youth 
and School Services, Child Development Center and Youth Center 
construction, and more.
    A challenge will be to sustain a consistent level of funding for 
these programs. If confirmed, I will consult with commanders, soldiers 
and families to ensure that these programs are adequate and meet their 
needs.
                               __________


  NOMINATION OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO THE 
    GRADE OF GENERAL AND TO BE CHAIRMAN OF THE JOINT CHIEFS OF STAFF

                              ----------                              


                         TUESDAY, JULY 26, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Webb, Udall, Hagan, Begich, Manchin, Shaheen, 
Gillibrand, Blumenthal, McCain, Sessions, Chambliss, Wicker, 
Brown, Portman, Ayotte, Collins, and Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; William G.P. Monahan, counsel; Michael 
J. Noblet, professional staff member; Russell L. Shaffer, 
counsel; William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; Paul 
C. Hutton IV, professional staff member; Daniel A. Lerner, 
professional staff member; Lucian Niemeyer, professional staff 
member; Michael J. Sistak, research assistant; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Christine 
G. Lang.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon I. Peterson, 
assistant to Senator Webb; Casey Howard, assistant to Senator 
Udall; Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Chad Kreikemeier, 
assistant to Senator Shaheen; Elena Broitman, assistant to 
Senator Gillibrand; and Ethan Saxon, assistant to Senator 
Blumenthal; Anthony J. Lazarski, assistant to Senator Inhofe; 
Lenwood Landrum, assistant to Senator Sessions; Clyde Taylor 
IV, assistant to Senator Chambliss; Joseph Lai, assistant to 
Senator Wicker; Charles Prosch, assistant to Senator Brown; 
Brent Bombach, assistant to Senator Portman; Brad Bowman, 
assistant to Senator Ayotte; Ryan Kaldahl, assistant to Senator 
Collins; and Sergio Sarkany, assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the nomination of General Martin 
Dempsey to be Chairman of the Joint Chiefs of Staff. It was not 
long ago that General Dempsey came before us for his nomination 
hearing to become Chief of Staff of the Army. We welcome him 
back, with thanks again for his 36 years of dedicated service 
to our Nation and his willingness to serve as Chairman of the 
Joint Chiefs of Staff.
    As we know from those decades of service, General Dempsey 
is an exceptionally well qualified American soldier and leader. 
As we were reminded at his last hearing, he is also a proud 
husband, father, and grandfather. General Dempsey, we remain 
grateful for the sacrifices that you and your family have made 
over the years, for the devotion of your beloved wife Deanie, 
and the military service of your daughters and your son. As is 
our tradition, at the beginning of your testimony we would 
welcome your introducing to us any family members and friends 
who may be with you this morning.
    General Dempsey will replace Admiral Mike Mullen as 
Chairman of the Joint Chiefs of Staff, the most senior military 
adviser in the Department of Defense (DOD). Admiral Mullen's 
service over the last 4 years during the daunting challenges of 
the wars in Iraq and Afghanistan has been truly remarkable and 
the Nation owes him our deepest gratitude.
    It is appropriate at today's hearing also to note the 
passing last week of former Chairman of the Joint Chiefs of 
Staff retired Army General John Shalikashvili. General 
Shalikashvili's personal story is well known, rising from post-
World War II immigrant youth to Chairman of the Joint Chiefs. 
His example of patriotism, leadership, and selfless service to 
the Nation and our Armed Forces inspired the generation that 
leads our military today. For those of us who knew him, we 
treasured his professionalism, his candor, and his deep love 
for America and our men and women in uniform.
    General Dempsey's confirmation will help complete the 
transition to President Obama's new national security team, 
which has seen significant changes in the last few months. The 
next Chairman of the Joint Chiefs of Staff will face complex 
and demanding challenges as operations in Afghanistan and Iraq 
continue at the same time the fiscal realities that confront 
the Nation will put tremendous pressures on the Defense 
Department's budget.
    Those fiscal realities require us, when considering defense 
planning and programs, to take into consideration historic 
budgetary constraints. Admiral Mullen has said that: ``Our 
national debt is our biggest national security problem.'' Most 
everyone agrees that the Defense Department cannot be immune 
from efforts to bring our fiscal house in order.
    We have been told that the Department is conducting a 
comprehensive program review and that the details are not yet 
known, but it is likely that this review will include 
significant additional suggested reductions in the 2012 budget 
request, cuts that are even more than the $6 billion reduction 
to the Department's request that this committee recently 
reported in our fiscal year 2012 authorization bill.
    The Department will have to make tough funding choices and 
we will need our military's best advice on how to reduce 
spending that realistically manages risk in ways that 
adequately addresses our top national security challenges. We 
will be interested in hearing General Dempsey's thoughts on 
defense spending and in particular whatever he can tell us 
about the comprehensive national security review that I 
referred to.
    The next Chairman of the Joint Chiefs will also have to 
manage the transition of security responsibility and the 
drawdown of U.S. forces in both Iraq and Afghanistan. In Iraq, 
the coming months will be crucial, leading up to the December 
2011 deadline for the withdrawal of our remaining 49,000 U.S. 
troops. Even though there are still concerns in Iraq over their 
security forces' capacity to assume full responsibility for 
Iraq's security, Iraq's political leaders have yet to request 
that the United States consider retaining a U.S. troop presence 
there beyond the end of the year deadline set by President Bush 
for complete military withdrawal. We will be interested to hear 
what General Dempsey's recommendations would be if the 
Government of Iraq makes a timely request for a continuing U.S. 
troop presence beyond 2011.
    In Afghanistan, the President has set a course for 
transitioning increased security responsibility to the Afghans 
and drawing down U.S. forces, beginning with the withdrawal of 
10,000 U.S. troops by the end of this year and bringing the 
balance of 33,000 U.S. surge forces home by next summer. I 
applaud the President for sticking to the July 2011 date that 
he set in his West Point speech 1\1/2\ years ago for the 
beginning of the drawdown. Doing so offers the best chance of 
success for the counterinsurgency campaign in Afghanistan. That 
is, getting Afghan security forces in the position to take 
principal charge of that nation's security.
    The sense of urgency that this timetable created at the 
highest levels of the Afghan Government contributed to a surge 
of some 100,000 additional Afghan security forces in just the 
last year and a half. Over the next 15 months, the Afghan 
security forces will be increasingly in the lead in operations, 
while another 70,000 Afghan soldiers and police will be added 
to their ranks.
    At the same time, General John Allen, the commander of 
coalition forces in Afghanistan, stated that the campaign plan 
calls for more and more Afghan security forces to be partnered 
in operations with fewer coalition forces. The growth in the 
capabilities of the Afghan security forces, both in quantity 
and professionalism, has already made possible the first phase 
of transition to an Afghan lead for security in a number of 
provinces and areas around Afghanistan.
    A significant challenge to achieving our goals in 
Afghanistan remains Pakistan's failure to act against militant 
extremists like the Haqqani network in North Waziristan, the 
Afghan Taliban around Quetta, and other militant extremists. We 
will be interested in hearing General Dempsey's thoughts on how 
to get the Pakistan military to go after terrorist groups 
finding sanctuary in Pakistan's Tribal Regions.
    Al Qaeda in the Arabian Peninsula in Yemen and al Qaeda 
elements of al Shabab in Somalia continue to take advantage of 
failing and failed states to train their operatives and to plan 
attacks against the United States and our interests. It is 
critical that we continue to apply significant pressure to 
these terrorist organizations and to work with governments and 
international organizations in the region to address the long-
term problems.
    Iran remains probably the greatest risk to world peace and 
to regional stability. We share the concerns of many nations 
about Iran's continued support of terrorist activities beyond 
its borders, development of its missile programs, and refusal 
to cooperate with the International Atomic Energy Commission 
with respect to its nuclear program. While we have seen 
evidence that the international sanctions have put stress on 
Iran, more remains to be done to pressure Iran to give up its 
nuclear weapons ambitions.
    In Libya, our Armed Forces continue to provide unique 
enabling capabilities to our North Atlantic Treaty Organization 
(NATO) and regional partners as they carry out the United 
Nations mandate to protect Libyan civilians from a dictator 
bent on killing his own people and destroying a country simply 
to preserve his grip on power.
    In the dynamic Asia Pacific region, we are committed to 
working with our many allies and partners to maintain peace and 
stability and to align our forces in a way that is both 
strategically sound and fiscally responsible. This is not only 
true in Northeast Asia, where the United States is realigning 
its forces in Korea and Japan, but it is also true in South and 
Southeast Asia.
    General Dempsey's leadership will be critical in 
determining how the Defense Department and indeed the Nation 
addresses the many and growing threats to our cyber security. 
All of our military communications, weapons systems, support, 
intelligence, and virtually everything else that DOD does 
relies on cyber networks. Making sure that we have the 
policies, practices, and technologies to reliably support 
military operations is a matter of increasing urgency. A recent 
critical Government Accountability Office (GAO) report 
emphasized the urgency of having a clear and coordinated cyber 
policy put in place.
    General Dempsey no doubt will also be called upon to help 
develop national cyber security policies, such as when does a 
cyber attack on activities or entities in the United States 
require or justify a U.S. offensive response, cyber or 
otherwise. We'll be interested in hearing General Dempsey's 
views on that.
    Repeated deployments of our military over the last decade 
has resulted in many of our service men and women being away 
from their families and homes for many tours, stressing our 
servicemembers and their families. Reducing the demand for 
deployed forces is essential to increasing time at home 
station, increasing unit readiness, and reducing our strategic 
risk in the event of an unforeseen contingency. We look forward 
to hearing General Dempsey's views on how best to manage both 
the demand for rotational forces and how we meet that demand 
while restoring our strategic depth, that is the readiness of 
our non-deployed forces.
    The Nation could not be more proud of their families. We 
are grateful for General Dempsey's leadership and his 
willingness to assume greater responsibility for the readiness, 
employment, and care of all of our forces and the families that 
support them.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I add my welcome 
to General Dempsey and his family, his wife, and congratulate 
him on this nomination.
    I first want to express my condolences to the family of 
General John Shalikashvili, who passed away last Saturday. 
General Shali was born in Poland of Georgian parents in 1936, 
fled from the advancing Soviets near the end of World War II, 
came to the United States as a teenager, and rose in the ranks 
to become Chairman of the Joint Chiefs of Staff from 1993 to 
1997. He was a great American patriot and Army leader.
    General Dempsey, just 3 months ago on April 11, you became 
the Chief of Staff of the Army. You're now poised to become the 
Chairman of the Joint Chiefs of Staff. Your impressive history 
of assignments I believe has prepared you well to become the 
principal military adviser to the President and the leader of 
the Joint Chiefs. Without question, your combat experience and 
career military leadership, your service as Acting Commander of 
U.S. Central Command (CENTCOM), and your thorough understanding 
of our transforming force stressed by a decade of combat will 
serve you well as strategic decisions regarding Iraq and 
Afghanistan must be made and we face hard calls about our 
priorities in the future.
    We're conducting this hearing at a time when Americans are 
deeply frustrated over the enormous debt we've accumulated and 
the effects of runaway entitlement spending on our economy and 
on our future. In this very difficult fiscal environment, 
there's no doubt that the defense budget will be constrained in 
the years ahead as we seek to solve our debt crisis.
    Clearly, DOD cannot afford to waste taxpayers' resources on 
Pentagon programs that are over cost, behind schedule, or fail 
to provide an increase in warfighting capability to our troops. 
However, I hope the President and the Secretary of Defense, 
with your assistance, advice, and counsel, will realize that 
defense expenditures following the attacks of September 11, 
which were preceded by nearly a decade of drastic reductions in 
military personnel, equipment, and readiness, are not the cause 
of the economic dilemma we find ourselves in today.
    Congress and the President must address the issue of 
unsustainable deficit spending and unprecedented debt in 
nondefense spending and entitlements which will impact the 
future of our military during your term. Since this year began, 
the President has already asked the Defense Department to cut 
more than $178 billion by finding efficiencies and taking top-
line reductions in proposed defense spending over the next 5 
years. But, even the current direction by the President to cut 
an additional $400 billion in defense spending by 2023 has been 
eclipsed by some debt reduction proposals that include $800 
billion to a trillion dollars in cuts in defense spending over 
the next 10 years.
    I'd be the first to suggest that the Defense Department 
budget could be responsibly reduced and reasonable people can 
disagree over how deep those cuts should be. But what concerns 
me most about our current debate is that the defense cuts being 
discussed have little to no strategic or military rationale to 
support them. They are simply numbers on a page. Our national 
defense planning and spending must be driven by considered 
strategy, not arbitrary arithmetic.
    The defense cuts currently proposed reflect minimal, if 
any, understanding of how they will be applied or what impacts 
they will have on our defense capabilities or our national 
security. While Secretary Panetta has made it clear that a 
comprehensive review will precede any decision of further 
defense cuts, Congress currently has no specific indication of 
how the current proposals would impact the size of our military 
forces, what changes they would require to our compensation 
system, what equipment and weapons would have to be cancelled 
as a result, or what additional risks to the readiness and 
modernization of our forces and their equipment we would have 
to accept.
    If Congress is to make informed decisions about our 
national defense spending, we need information like this. I 
hope, Mr. Chairman, that we can begin holding hearings on this 
important subject.
    I also hope that you will carefully monitor Department 
contracting and expenditures. Your frankness and candor on how 
money is spent by the Department will be much needed by 
Congress as we assess how to direct Pentagon spending.
    General Dempsey, obviously I'm confident you will be 
confirmed. I hope you and Secretary Panetta will avoid 
misguided and excessive reductions in defense spending that cut 
into the muscle of our military capabilities. Defense spending 
is not what is sinking this country into fiscal crisis, and if 
Congress and the President act on that flawed assumption they 
will create a situation that is truly unaffordable--the 
hollowing out of U.S. military power and the loss of faith of 
our military members and their families.
    I trust that you will have the ability and confidence to 
advise the President and Congress on your views regarding the 
health of our military and the ability of our forces to meet 
our cooperative security commitments with our allies around the 
world. We will need an honest and forthright military 
assessment of the impacts of funding decisions.
    I look forward to your opinions today and on these matters 
and your vision of the way forward. Again, my congratulations.
    Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General Dempsey.

 STATEMENT OF GEN MARTIN E. DEMPSEY, USA, FOR REAPPOINTMENT TO 
THE GRADE OF GENERAL AND TO BE CHAIRMAN OF THE JOINT CHIEFS OF 
                             STAFF

    General Dempsey. Chairman Levin, Senator McCain, 
distinguished members of the Senate Armed Services Committee, 
I'm honored by the opportunity to appear before you today in 
support of my nomination as Chairman of the Joint Chiefs of 
Staff. I want to thank the President and both Secretaries, 
Gates and Panetta, for their confidence in me. I also want to 
compliment Admiral Mike Mullen for his remarkable service over 
more than 4 decades as he nears the end of a distinguished 
career. I would as well like to add my condolences to the 
family of General John Shalikashvili. He was truly an 
accomplished soldier and a great American.
    As always when something important is happening in my life, 
I am joined this morning by my wife Deanie. I met Deanie 41 
years ago and she's been my wife for just over 35 of those 
years. I have asked a lot of her and she's always given more 
than I've asked. We have three wonderful children, three near-
perfect grandchildren, and three more on the way.
    We're also blessed to have several brigades' worth of young 
men and women in uniform and their families with whom we've 
served and who we consider our extended family and it's on 
their shoulders that I have been lifted up today to be 
considered for this position.
    But it won't surprise you to know that the glue that holds 
all of that together is Deanie, and I can't thank her enough 
for her love and support and for her dedication to our 
military, its families, and our Nation.
    I appeared before this committee just a few short months 
ago and as far as I can tell my tenure as 37th Chief of Staff 
of the Army hasn't changed me very much. However, now that I'm 
nominated as Chairman, the images that drive me are beginning 
to change. I'll share just one of those images.
    In 2008, as the Acting Commander of CENTCOM, I visited the 
aircraft carrier USS Abraham Lincoln in the Indian Ocean and 
observed flight operations there that were being conducted in 
support of ground operations in Afghanistan. As I watched these 
brave young men and women departing on their missions, I saw 
looming in the background on the superstructure of the aircraft 
carrier the imposing profile of Abraham Lincoln, and inscribed 
above that image were the words ``Shall Not Perish,'' taken, of 
course, from Lincoln's Gettysburg Address. It occurred to me 
then, as it reminds me now, that those who volunteer to serve 
our country in uniform understand what's at stake when we send 
them into harm's way.
    I relate this story simply to assure you that I know what 
this nomination means and I will do my best to live up to the 
responsibility. If confirmed, I will work with the Joint Chiefs 
to ensure that this Nation has the military it needs.
    It's clear we have work to finish in the current conflicts 
and it should be just as clear that we have work to do in 
preparing for an uncertain future. Our work must result in a 
joint force that is responsive, decisive, versatile, 
interdependent, and affordable. We must keep faith with service 
men and women, their families, and our veterans.
    We're all very proud of the military forces of the United 
States and this committee has been instrumental in making it 
the finest force ever assembled anywhere at any time. We are 
also aware that a new fiscal reality confronts us.
    In 1973, as Chief of Staff of the Army, General Creighton 
Abrams led us out of the Vietnam conflict and he said that it 
was the enduring role of the Army to ensure that America 
remains immune from coercion. That benchmark remains as true 
today as it was 38 years ago, and it applies, of course, not 
only to our Army, but to all our Services.
    I look forward to working with the Joint Chiefs, with our 
civilian leaders, and with the members of this committee to 
adapt the U.S. military to a new fiscal reality while ensuring, 
as my primary responsibility, that America remains immune from 
coercion. Should you confirm me as Chairman, you have my solemn 
commitment to those tasks.
    Thank you and I look forward to your questions.
    Chairman Levin. Thank you very much, General Dempsey. 
Again, thanks to Deanie.
    General, the committee has a series of standard questions 
that we ask all of our nominees and I'll ask them of you. Have 
you adhered to applicable laws and regulations governing 
conflicts of interest?
    General Dempsey. I do, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Dempsey. I will.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dempsey. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Dempsey. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dempsey. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Dempsey. They will, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Dempsey. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Dempsey. I do.
    Chairman Levin. Let us have a 7-minute first round of 
questions. I understand there's a vote at around 12:15.
    General, first relative to Afghanistan. On June 22, 
President Obama announced his decision that the United States 
would draw down its forces in Afghanistan by 10,000 by the end 
of this year and the remaining 23,000 U.S. surge forces by the 
end of the summer in 2012, for a total drawdown of 33,000. Do 
you agree with the President's decision on these reductions?
    General Dempsey. I do, Senator. I've been in contact with 
both General Petraeus and now General Allen and, based on their 
military judgments and the options they've presented, I do 
agree with the decision taken.
    Chairman Levin. How important is it to the success of the 
counterinsurgency campaign in Afghanistan that we maintain the 
momentum for transitioning more and more responsibility to the 
Afghan security forces for their country's security?
    General Dempsey. As it was in Iraq and is now in 
Afghanistan, it is the transition at the end of the day that 
will determine our successful outcome. Of course, it does take 
a great deal of thought, a great deal of deliberation and 
collaboration, to understand the capabilities as they are 
accrued by security forces of those nations where we task 
ourselves to build those security forces.
    Chairman Levin. A recent Defense Department report called 
the extremist Haqqani network ``the most significant threat in 
eastern Afghanistan''. Yet, the Haqqanis continue to find safe 
haven across the border in Pakistan and the Pakistan army has 
so far refused to conduct major operations to eliminate the 
Haqqani sanctuary in the tribal area of North Waziristan.
    Will you press the Government of Pakistan to take the fight 
to the Haqqani network in North Waziristan?
    General Dempsey. I will, Senator. As the Acting Commander 
of CENTCOM, in those days we talked about four particular 
networks that existed along the Afghan-Pakistan border, and we 
encouraged our Pakistani counterparts to press them. They have 
pressed some of those groups, but not all. It's not always been 
clear to us exactly why they press some, but not all. But I 
will continue to work with Pakistan to reduce the safe haven on 
the Pak border.
    Chairman Levin. In answers to your advance policy 
questions, you state that in working with Pakistan on security 
cooperation we should not push programs the Pakistanis do not 
want, because doing so dilutes the value of U.S. cooperation, 
and you call for a frank and respectful dialogue in order for 
our security cooperation to be successful.
    Can you give us your assessment on the DOD programs of 
assistance to Pakistan, in particular the coalition support 
funds and the Pakistan counterinsurgency fund, and to tell us 
whether or not those are programs that the Pakistanis want or 
whether or not we've been pushing them on Pakistan, which has 
reduced Pakistan's buy-in to those assistance programs?
    General Dempsey. I'd reflect back on my tour as the Acting 
Commander of CENTCOM in answering this question. I'm not 
current on the state of the coalition support funds and the 
programs you described as they've evolved. But I will tell you 
it's always been a matter of discussion between us and our 
Pakistan counterparts about what threats are most serious to 
them and to us. They persist in the idea that India poses an 
existential threat to their existence, while the terrorists 
that operate with some impunity in the Northwest Frontier 
Province and in the Federally Administered Tribal Areas are 
less threat to them, and therefore they allocate their 
resources accordingly and they embrace different engagement 
activities with us differently.
    We have been, over the course of time, working to convince 
them that the terrorist threat, the extremist threat, to their 
west is as great a threat and probably a greater threat to them 
than any threat that India might pose. But it's on that basis, 
it's on that intellectual disagreement about what is most 
threatening to them, that these programs are viewed. We would 
tend to view programs to improve counterinsurgency capability 
in their general purpose forces, policing and security role for 
their Frontier Corps, we would tend to view those as more 
important than the higher end processes and programs. It's just 
one of those things we have to continue to work through.
    Chairman Levin. Thank you.
    There's been a great deal of discussion about standards of 
interrogation and detainee treatment, and some of the language 
in our authorization bill relates to that subject. First, do 
you support the standards for interrogation and detainee 
treatment which are specified in the Army Field Manual on 
Interrogations?
    General Dempsey. I do, Senator.
    Chairman Levin. Would you tell us why?
    General Dempsey. I had a hand in preparing them and so I 
have a certain sense of ownership for them. But I do think that 
they articulate the nexus of the importance of gaining 
intelligence with the importance of preserving our values as a 
Nation and as an Army.
    Chairman Levin. Would you agree that the standards for 
detainee treatment should be based on the principle of 
reciprocity, in other words that the manner in which we treat 
detainees that are under our control may have a direct impact 
on how U.S. troops are treated should they be captured in 
future conflicts?
    General Dempsey. I do believe that reciprocity should 
absolutely be one of the principles on which our approach to 
detainee operations should be based.
    Chairman Levin. A number of us--many, probably all of us on 
this committee--are increasingly concerned about cyber attacks. 
It's a subject of, obviously, great and increasing concern for 
our country. One of the questions is whether or not when we are 
a victim of cyber attack, as to how we should respond. Of 
course, I guess the real question is whether or not we can 
identify the attacker as being a state actor and whether or not 
an attack is intentional or not. It could be an act of 
espionage which we engage in ourselves. We engage in espionage 
and other countries engage in espionage, and those acts 
apparently are not considered to be acts of war.
    On the other hand, if something intentionally damages, 
destroys, a facility or an entity in another country that it 
would seem to me at least to be an act of war or an aggressive 
act which requires a response.
    Can you give us your thinking about the whole growing 
emerging issue of cyber attacks and how should the Defense 
Department participate in determining what the response is to 
those attacks?
    General Dempsey. I can, Senator, but I'll confess at the 
start that my thinking on this is nascent at best. It has been 
suggested to me that, if confirmed, the issue of cyber and 
cyber warfare, the cyber domain, will probably be one of a 
handful of issues that define my tenure as Chairman. I'm taking 
a greater interest in it. But I have some thoughts on it right 
now as well.
    The decision about whether something is an act of war or 
whether we would respond to it is, of course, a political 
decision, and it's the role of the Department and, if 
confirmed, with my advice as Chairman, on how to respond to it. 
At this point my greater interest is in determining what 
capabilities we must provide the Nation to be prepared to 
respond should we be attacked and should the determination be 
made that it was a hostile act or an act of war.
    You've described the challenge very articulately. It's very 
hard to trace fingerprints and threads back through the cyber 
domain because of the ability to use servers at remote 
locations. It's a place, it's a domain, where anonymity is more 
an issue than it might be in the domains of space, air, land, 
or sea.
    That said, we have done a lot of work. You know that the 
President published a policy in May 2011. That was followed up 
just a week ago, actually, by a DOD declaration by Deputy 
Secretary of Defense Lynn, and at this point I'm in the process 
of studying that. I have a series of meetings scheduled, if 
confirmed, between the time I'm confirmed and when I take the 
job, with those who are delivering that capability today to 
better understand it.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Again, congratulations, General. Just to follow up on what 
Chairman Levin said, you want to assess the capabilities, but 
you have to develop a strategy and a policy before. That comes 
before the capabilities, in all due respect.
    Look, this is a serious issue. Congress has not done its 
job, but certainly DOD has not done its job, and to just say 
we're going to assess our capabilities--we have to develop a 
strategy. This is a serious, serious issue that hardly when we 
pick up the newspaper every week or so that somebody hasn't 
been hacked into, not always military, but industrial, which 
obviously are key to our Nation's economic and military 
success.
    I suggest you start working on a policy, and I also suggest 
we here in Congress start working on legislation which would 
implement that policy.
    I hate to keep going back to this issue of the withdrawal 
from Afghanistan. Now, the President announced the drawdown, 
and you said you supported it. Was it recommended by any 
military leader, the President's schedule for the drawdown?
    General Dempsey. Senator, my understanding is that General 
Petraeus proposed three options. I haven't talked to him about 
how he felt about those options, but no military man would 
propose an option he considered to be infeasible. The President 
chose one of those three options. So I can only say----
    Senator McCain. General Petraeus did not give him this 
option of the accelerated withdrawal so that they didn't have 
two fighting seasons, General. I'm sure you know that.
    General Dempsey. No, I do not know that, Senator.
    Senator McCain. You do not know that?
    General Dempsey. I do not.
    Senator McCain. General, I'll send you the testimony of 
General Petraeus before this committee, and I'm disappointed 
that you didn't know that, because it was not recommended by 
any military leader, nor would it be. In fact, General Petraeus 
and others have testified that it increased the risk. Do you 
share that view?
    General Dempsey. I think it did increase the risk, yes.
    Senator McCain. Thank you. An unnecessary risk in my view.
    I want to talk about budget cuts. You just left as Chief of 
Staff of the Army and I understand the President has called for 
$800 billion in budget cuts; is that correct?
    General Dempsey. The current number we're targeting is $400 
billion, Senator, over 12 years.
    Senator McCain. Have you developed any plans as to how to 
implement that?
    General Dempsey. We are working on that even as we speak. 
We have a task from the Department to look at what the impact 
of that budget cut would be.
    Senator McCain. When could we expect to have that 
assessment, since the appropriations process moves on here?
    General Dempsey. Senator, back to your point about 
strategy, we have a task to try to keep strategy running 
parallel with resource decisions, and the comprehensive 
strategy that the chairman mentioned is due for completion some 
time in late September, early October.
    Senator McCain. So we have announced cuts without the 
commensurate strategy to go along with it? Not comforting.
    General Dempsey. Senator, what I would describe is we've 
announced a target and we're trying to determine what the 
impact would be to meet that target, and we are looking at 
that.
    Senator McCain. In most cases that I've seen, the strategy 
has been developed and then the budget for it is arrived at, 
not the other way around.
    General Dempsey. Sir, I can speak as the Chief of Staff of 
the Army. Because the cuts are articulated over 10 or 12 years, 
it'll affect four program operating memorandums. Decisions 
taken in 2013-2017 would not be binding on the following three 
targets, but would certainly affect that program operating 
memorandum.
    Senator McCain. But we are talking about $80 billion 
developed for next year; is that correct?
    General Dempsey. Potentially, sir.
    Senator McCain. Potentially?
    General Dempsey. Again, sir----
    Senator McCain. Isn't that what the President has called 
for?
    General Dempsey. He has, sir, but we have not provided the 
analysis back to the Secretary of Defense on what the impact 
would be as yet.
    Senator McCain. Which brings me again full circle. We have 
announced cuts without a commensurate assessment of the impact 
of those cuts. In your view, what would an $800 billion to $1 
trillion cut in defense spending over the next 10 years do to 
our readiness, General?
    General Dempsey. Senator, I haven't been asked to look at 
that number, but we have looked and we are looking at $400 
billion. I would react in this way. Based on the difficulty of 
achieving the $400 billion cut, I believe $800 billion would be 
extraordinarily difficult and very high risk.
    Senator McCain. I forgot to mention at the beginning of our 
conversation an article yesterday: ``U.S. drawdown, internal 
crises, fuel fears for Afghanistan. The start of the U.S. troop 
drawdown, overlapping security, political, and economic crises 
are fueling fears that Afghanistan could sink into wholesale 
turmoil and even civil war as the U.S.-led international combat 
mission winds up at the end of 2014.''
    Are you concerned about that?
    General Dempsey. Yes, sir, I am.
    Senator McCain. On the supply routes for Afghanistan, our 
relations with Pakistan have hit in the view of most observers 
an all-time low. Have you assessed and looked at, in your 
previous role, the impact on our ability to supply the forces 
in Afghanistan if the Pakistanis cut off those supply routes 
across Pakistan?
    General Dempsey. Yes, Senator, we have.
    Senator McCain. What's been your conclusion?
    General Dempsey. The conclusion is that we would have to 
rely more on what we describe as the Northern Supply Route, 
which does exist, and that it would be more expensive.
    Senator McCain. Suppose tomorrow Pakistan cut it off, what 
would be the period of time between then and when you would be 
able to maintain the same level of supply through the northern 
routes or air resupply?
    General Dempsey. It would be a classified issue of how many 
days of supply we maintain inside the country. But beyond that, 
we believe that if that Southern Supply Route were cut off that 
we could react.
    Senator McCain. You could react. There would be a delay?
    General Dempsey. Yes, sir, but in a way that would not 
jeopardize the mission.
    Senator McCain. Would not jeopardize the mission.
    A group chartered by the Secretary of the Army to look into 
how the Army procures major weapons systems found that every 
year since 1996 the Army has spent more than $1 billion 
annually on programs that were ultimately cancelled. Since 
2004, $3.3 billion to $3.8 billion per year of Army 
developmental testing and evaluation funding has been lost to 
cancelled programs, including the now-cancelled Future Combat 
System program.
    As we know, the cost of the F-35 has lurched completely out 
of control. The few short months after the awarding of the 
contract to Boeing for the new tanker, it is now another 
additional billion dollars in cost, and the list goes on and 
on. What's the level of your concern and what do you think we 
ought to be doing about it?
    General Dempsey. Senator, as we discussed when I was here a 
few months ago, it would be impossible to sit here and justify 
the current process, given that it has not delivered the 
capabilities we've required within the resources available to 
do so. I think that we're in a point where we absolutely have 
to seek acquisition reform. I know that the Under Secretary of 
Defense for Acquisition is seeking that. I know we were helped 
by the Weapons System Acquisition Reform Act. You know that the 
Department, based on that, is seeking the Better Buying Power 
Initiative. We're working toward it.
    Right now there's probably a reason to consider a different 
role for the Service Chiefs in acquisition. Right now it's kind 
of bifurcated. Service Chiefs do requirements, acquisition does 
material solution. That hasn't worked and I think it has to be 
revisited.
    I completely agree with your assessment of our current 
state. Nevertheless, we need capabilities. It will be my role, 
if confirmed, to argue for that fifth generation fighter, but a 
fifth generation fighter that the Nation can afford. Therefore, 
the way to that is through acquisition reform.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator McCain. Thank you, General.
    Chairman Levin. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General Dempsey, for your service to the Army 
and to the Nation. I have every confidence you're going to be a 
superb Chairman of the Joint Chiefs of Staff, and I'm going to 
recognize Deanie and your family. I think I properly pointed 
out to the chairman that, although you were high school 
sweethearts, you married after West Point. I just want to make 
sure of that because it's problematic otherwise.
    I also want to salute Admiral Mullen for his extraordinary 
service and join my colleagues in recognizing the extraordinary 
service of General John Shalikashvili. General Shalikashvili 
proudly said he was a citizen of only one country, the United 
States of America, despite where he was born and where he 
traveled. He was the consummate citizen soldier, and to his 
family my deepest sympathies.
    The issue that is before us, and it's been alluded to and 
talked about in your previous hearing for Chief of Staff of the 
Army, is the budget. With the sake of risking 
oversimplification, there's at least three major categories 
that you have to deal with: force structure, including pay and 
allowances, in this context the Reserve Forces and the retired 
forces and the National Guard, but particularly retirees; 
equipment, procurement, how much it costs, what do you need, 
can you suspend acquisitions; and finally, the issue of 
operations and training, where we're going to go in an 
operational sense and how are we going to train.
    With that as a very broad context, can you comment upon the 
approach you're going to take with respect to these issues and 
the budget you face?
    General Dempsey. Yes, Senator. I think the important point 
to make in the question of how to absorb reductions or debt 
total obligating authority is really to reinforce that it must 
touch each of the things you mentioned. We will not be able to 
change the size and the capability of the force--and I'll speak 
for the Army because I'm immersed in it now--unless we do so by 
touching each of those areas you talked about.
    For example, if we try to artificially preserve manpower we 
will suffer the consequences in modernization and in 
operations, maintenance, and training. Conversely, if we go 
after just manpower, it won't make any sense to have the kind 
of resources in operations, maintenance, and training.
    This really requires us to maintain balance as we make any 
changes that become necessary by virtue of budget support. I'll 
also say that includes pay, compensation, retirement, and 
health care, because it's important that we place everything on 
the table, assess the impact, and then request the time to do 
it in a deliberate fashion, so that we can maintain balance at 
whatever level we end up at.
    Senator Reed. When you address the issue of pay and 
allowances, retirement compensation, health care, there are two 
factors. One is the relationship between funding those programs 
and funding troops in the field, equipment in the field, 
etcetera. Do you propose to make that very explicit, 
particularly to the retirement community, that with the top 
line there's no longer the possibility of simply adding more 
money, that there has to be tradeoffs between operations, 
training, troops in the field, their safety, and some of the 
benefits that have accrued to retirees?
    General Dempsey. I think what I would say--yes. If I could, 
I'll just elaborate for a moment.
    Senator Reed. Yes, sir.
    General Dempsey. I think it's very important that we 
maintain an open dialogue with all parts of this total force, 
Active, Guard, Reserve, families, retirees, to help them 
understand the challenge. The challenge is simply this, and 
again I'm speaking just for the Army. Right now our manpower 
costs consume approximately 42 percent of our budget. Left 
unabated, that is to say left unaddressed, that will rise to 
approximately 47 or 48 percent by 2017. That is not 
sustainable.
    The question then comes back, what should we do about it 
and how can we do so in a way that maintains the trust we've 
established with our force over time. I'll say one other thing. 
What makes this budget discussion different--I'm a student of 
history, and I've studied the post-Vietnam period, I've studied 
the post-Operation Desert Storm/Desert Shield period. What 
makes this period different is we're doing all this while we're 
still actively engaged in conflict and we have young men and 
women in harm's way. That adds a degree of complexity and a 
degree of uncertainty that I think we can't discount.
    Senator Reed. A final point with respect to this whole 
issue of how do you rebalance the personnel costs, etcetera. I 
presume your view would be to lead from the top, that senior 
officers and senior personnel would be the first ones to stand 
up and say: If it's going to have to happen, it'll happen with 
us. Is that fair?
    General Dempsey. Did you have to ask me that question in 
front of my wife, Senator? [Laughter.]
    But the short answer is: Absolutely. I think it's leading 
from the top individually, but I also think it's leading from 
the top at examining our structure, which tends to be rather 
top-heavy and in fact historically, again if you look through 
conflicts, headquarters grow in ways that have to be 
reconsidered and reformed after conflict.
    Senator Reed. Let me slightly change the subject, but I 
think it relates to what we've been saying, that we are on our 
way out of Afghanistan, as we are in Iraq. Going forward, you 
have to be prepared to successfully hand over significant 
activities to the Department of State, to the U.S. Agency for 
International Development, et cetera. Your success in 
transition is a function of the resources they must receive. My 
perception being here is that when the defense budget is 
reduced, the State Department budget is decimated.
    Do you, one, have those concerns; and two, consciously, if 
we are going to maintain a credible security force beyond 1 or 
2 years, we're going to have to internationally provide 
resources to Afghan national forces. Is that going to be one of 
your priorities? My only historic hook here is that Najibullah, 
the last Soviet-era leader, survived 2-plus years after the 
Soviets withdrew, but when the resources--and not just for the 
military, but for everything--dried up, his days were literally 
numbered.
    General Dempsey. Yes, sir. We certainly don't want to be 
guilty of reprising the epilogue of Charlie Wilson's War. I 
take your point completely. My job will be, given the strategic 
objectives in Afghanistan, to determine how best to meet them. 
If and when U.S. force structure reduces, what is it that 
compensates for that. Is it other agencies of government?
    The measure of national power is the aggregate of economic 
strength, diplomatic strength, and military strength. All three 
of those have to participate in these outcomes and all three of 
these have to be considered as we look at these reductions to 
make sure we stay in balance in that way as well.
    Senator Reed. Thank you for your service and thank you for 
your family's service. Thank you.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, General Dempsey, for your leadership and your 
commitment, your willingness to serve in harm's way. I notice 
just looking at your bio--I looked at it because I remember 
seeing you in Iraq and coming back and you were still there. I 
notice you were there the first tour 16 months, came home to 
Germany and were deployed there for 10 months, and back for 21 
months. That's the kind of deployment that a number of our 
military people have made serving their country in dangerous 
areas of the globe. I just want to personally thank you for 
your commitment, and I think it reflects the kind of commitment 
many other enlisted people, many other of our leaders in the 
military, have exhibited.
    Mrs. Dempsey, it's good to see you, and thank you for being 
a good partner in those difficult years.
    I just want to follow up on Senator McCain's comments about 
the budget. We've had a lot of people believe that the deficit 
is caused by the war in Afghanistan and Iraq. It certainly was 
not inexpensive. It's been an expensive process. Last year was 
one of our highest years, $158 billion committed to that 
effort. But our deficit--I say ``last year''; the year we're 
in, we're projected to spend $158 billion. It looks like our 
deficit this year will be $1,500 billion. A little more than 10 
percent only, if you eliminated the war, of our deficit would 
be eliminated. Over the period of time, that percentage has 
been fairly accurate about the cost of the war.
    I also am a bit troubled that some of the projections for 
our spending go from, next year we're projected to drop from 
$158 to $118 billion for the overseas contingency operations 
(OCO). Is that your understanding?
    General Dempsey. It is, Senator.
    Senator Sessions. I think is it the next year, 2013, that 
it's projected to go to just $50 billion?
    General Dempsey. I have seen that number, but I'm more 
confident in the $118 billion than I am in the follow-on years.
    Senator Sessions. It would be a dramatic drop to $50 
billion that quickly. I don't think that is likely to be 
achieved and I'm concerned about it. The President's budget 
projects $50 billion for the rest of the decade there for 
spending. I don't know if that's accurate or not.
    I would say that we can't let numbers like that drive the 
agenda. The agenda has to be if we can draw down our forces, 
good, let's do it in a strategic, smart way that does not put 
our soldiers or the goals they've put their lives at risk for 
in jeopardy just to meet that kind of goal. I hope and expect 
that you would advise us if you think that number is not 
acceptable. Would you?
    General Dempsey. I wonder, Senator, if I could--I mentioned 
earlier that I'm not a man of numbers necessarily or charts and 
wiring diagrams, but rather images. Could I ask my staff to 
pass out an image to you by way of answering your question, if 
I could?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Dempsey. While the staff is handing this image out, 
one of the things we've said consistently, my predecessor and 
his predecessor as Chief of Staff of the Army, is that when 
this conflict ends, however we define ``ends'', it'll take 2 
years for us to reset the force because of the stress and 
strain on equipment and people. It'll take us 2 years to reset, 
and that reset should be in my judgment funded by OCO and 
therefore it will be my responsibility, on behalf of all the 
Services, to define what will it take to reset the force once 
we have the opportunity to do so.
    If I could just ask you to glance at the picture. I've done 
a lot of thinking about what is it that will get us through, 
has gotten us through this last 10 years, because frankly if 
someone had suggested to me 10 years ago that we would be able 
to fight a war for 10 years with an All-Volunteer Force, I 
honestly would have been skeptical about it. We have gotten 
through that, and not only have gotten through it, but we've 
actually flourished. The force is extraordinarily healthy.
    Whatever we do, it's important to remember we're doing it 
from a foundation of great strength. It is truly the finest 
military force we've ever had, all components.
    The reason I like that picture--my sergeant major, by the 
way, doesn't like it because the soldier's not wearing his eye 
protection and he has his sleeves rolled up. But I asked him to 
get beyond that for a moment, because that picture speaks to 
me, that image speaks to me, on the issue of trust.
    It's trust because, as you see, there's a soldier 
protecting that soldier's flank. He's wearing a wedding band, 
so it reminds us that they're married and they trust that we'll 
take care of their families both now and into the future.
    Here's the point. He's on the radio and he's calling for 
something, and we don't know what it is. It could be a medevac, 
it could be close air support, it could be artillery. It's 
likely to be another Service that delivers it. But here's the 
profound point not to forget: What makes us unique is that 
noncommissioned officer (NCO) believes he's going to get what 
he asks for. We are the only army on the face of the Earth that 
believes that when you ask for something because you need it to 
prevail in the environment we place you, you're actually going 
to get it.
    As we do whatever we have to do with this force based on 
the resources, the one thing we cannot lose is that 
relationship of trust that exists, that what that soldier, 
airman, sailor, marine, or coast guardsman needs to do the 
things we ask him to do, they have to have it. That's what 
carries us through.
    In answer to your question about budget numbers, I don't 
know. But what I do know is that I will not allow that 
relationship of trust to be violated.
    Senator Sessions. Thank you. I think this is a very 
critical point, that we have the finest military the world's 
ever assembled. They are courageous. They put their lives on 
the line. They've lost their lives in significant numbers and 
been injured significantly. But they do have to be confident 
the people of this country are behind them, and sometimes that 
means money, dollars, that get them the things that they need. 
I appreciate your comments on that.
    General Dempsey, on a specific matter, I notice in your 
answers to the advance policy questions you note that you 
supported the decision to retain three brigade combat teams in 
Europe and this is the answer--I'm sure staff helped you put it 
together, since I notice you have a master's in English at 
Duke, typical of our high quality and highly educated officer 
corps. But it says: `` . . . to meet a wide array of 
engagement, building partner capacity, and interoperability 
objectives while being prepared to support a full range of 
military operations needed for plausible European and global 
contingencies.''
    I'm not sure what that means, but I don't think we need 
three brigades to do it there. The plan was to bring it to two. 
I understand we're talking about a new hospital for Lanstuhl, 
which if, we pray, we're successful in drawing down, maybe that 
can be scaled down. But that's the kind of things I think we 
need to ask about when our allies are spending about 1.2 
percent of gross domestic product (GDP) on defense, 1.3, only a 
few of our NATO allies are meeting the goal or coming close to 
the goal of 2 percent, while we're over 4 percent of GDP on 
defense. I think we have to ask ourselves, can we continue to 
maintain that kind of forward deployment of brigades when we 
were supposed to be reducing to two?
    My time is up, Mr. Chairman.
    I know you've given that answer that you support the three, 
but I'd like you to say that you will at least reconsider that 
in the months to come.
    General Dempsey. First of all, Senator, I apologize for the 
run-on sentence. That one got past me, apparently.
    But I will say I am an advocate of forward presence--I want 
to be clear about that--for all the things it does for us, not 
just for our allies. Second, I am a strong advocate of 
maintaining a strong relationship with our current allies, 
because they've been tried and true. I know that we sometimes 
look at, compare an individual NATO country to us, but the 
reality is that in the aggregate they commit about $300 billion 
a year to defense in the aggregate, and they are serving very 
bravely and courageously with us in Afghanistan. Notably, I was 
at a ceremony at the French embassy last night where the French 
presented five of their equivalent of Silver Stars to our 
soldiers who had served alongside of them in Kapisa Province, 
and the French were very proud to note that they have a French 
battalion under our command without caveat in Afghanistan.
    I think we should not, in the midst of our current budget 
challenges, undervalue our relationships overseas. Now, that 
said, the comment about whether it's two or three brigades in 
Europe was made when we were shooting for $178 billion in 
reductions, not $400 billion. I would restate my earlier 
message in discussion with Senator Reed: Everything is back on 
the table.
    Senator Sessions. I would agree. Secretary Gates noted that 
our allies, with exasperation--he's urged them to do better and 
share better, and been disappointed that they have not.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, I apologize for having had to step out for a few 
minutes, and I missed your exchange with Senator Reed and the 
beginning of your exchange with Senator Sessions. I hope these 
questions aren't redundant to those.
    First of all, we are going to be entering into a period of 
reformulation of our national strategy and our posture around 
the world in many cases with the wind-downs in Iraq and 
eventually in Afghanistan. I've not seen anything on your views 
with respect to sea power as an instrument of national 
strategy, not simply in terms of supporting ongoing ground 
operations, which was one of your comments earlier about 
visiting the USS Lincoln, but actually in its historical role 
as a direct instrument of deterrence on a larger scale.
    General Dempsey. Sir, both because of my time in the joint 
world and now as a member of the Joint Chiefs, I am enormously 
proud of our Navy and cognizant of and respectful of its role. 
I think that one of the questions we have to ask ourselves in 
this strategic review is where are the new power centers across 
the globe? The Navy has a traditional role in protecting the 
global commons with respect to, obviously, the maritime domain, 
as the Air Force does in the aviation domain.
    I would say that my views on sea power are about the same 
as they are on land power, and that is that we should never get 
to the point where we have to choose between a particular 
domain and another. We should be increasingly interdependent.
    I am concerned, by the way, about the Navy shipbuilding 
program and the fact that we're sitting at 280 ships with a 
suppressed demand for 313, and some of the acquisition problems 
we've had are making it more difficult to get there.
    I'm a big fan of the Navy, with one important exception, 
and that is on that Saturday in November when we play the Army-
Navy football game.
    Senator Webb. Having gone from the Naval Academy into the 
Marine Corps, I don't watch that game very often. [Laughter.]
    But it does seem to me that we are at the end of another 
inevitable historical cycle here, when we have these extended 
ground combat deployments that expand the size of the Active 
Duty Army and of the Marine Corps, at the expense very often of 
what I would call national strategic assets, like our 
operational Navy.
    I think I'm hearing from you the same thing I heard from 
Secretary Panetta, that the 313-ship goal for the Navy is a 
reasonable goal. Would that be correct?
    General Dempsey. My engagements with Gary Roughead over the 
past 3 months suggest to me that it is. But again, I think we 
had a conversation a bit earlier about how do we keep strategy 
apace with resource decisions. That comprehensive strategy 
review that we're doing should, it seems to me, either 
reinforce that or cause us to think differently about it.
    One of the things I think will happen is, to the question 
of whether we can absorb $400 billion, I don't know the answer 
to that as I sit here today. I don't know for the Army and I 
certainly don't know for the joint force. But as we look at it, 
we will reach a point where we have to make a determination, 
can we execute the strategy we have today, which is what the 
313-ship shipbuilding program is built to? Can we continue to 
execute that strategy or do we have to change our strategy? 
That's the kind of questions and the answers to those questions 
that we owe you as a member of this committee.
    Senator Webb. I would hope that part of the reexamination 
of the strategy is a realization that the model that we put in 
place in Afghanistan is not going to be the model of the 
future. It's enormously costly, in more ways than show up in 
the direct DOD budget.
    One of the concerns that I've had since I've been here in 
the Senate is with what I can only call a deterioration of the 
management aspects in the Pentagon. I hope you will really take 
a look at that, items such as data collection that's necessary 
to have debates on different issues. I could give you a whole 
string, as someone who worked over there as a manpower person 
and was used to some fast turnarounds when data was requested, 
where this wasn't. It took us a year to get attrition data from 
the Services that were necessary to analyze what percentage of 
the military actually left the military on or before the end of 
their first enlistment, which was vitally important in the way 
that I was trying to advance the GI Bill as a readjustment 
benefit, which it had been traditionally.
    I just held a hearing as chairman of the Personnel 
Subcommittee and part of it was asking for courtmartial and 
discharge data, and the Army was not able to tell me with a 
week's notice how many honorable, general, and other than 
honorable discharges it had issued over the past year. The 
other data kind of fluctuated day to day.
    This is the kind of stuff that when I was a committee 
counsel up here a few years ago you could literally get in 24 
hours. I hope you will get on top of it. I think it's a 
management issue. I don't think people are so busy that they 
can't keep that kind of data, and certainly the size of the 
military and the retention rate--the size of the military is 
lower. The retention rates are higher. It shouldn't be 
difficult data to keep.
    One of the pieces of data that jumped out at me goes to the 
number of general/flag officers Service by Service. I used this 
as a starting point when we were looking at an issue of whether 
the Air Force should be able to keep seven--I believe it's 
seven--six flag officers as Judge Advocates General (JAGs). 
I'll give these numbers really quickly. The Army has 569,400 
people on Active Duty as of this week, the Navy 328,000, the 
Marine Corps 202,000, the Air Force 332,000. Do you find it 
curious that the Air Force has more four-star generals than any 
of the other Services?
    General Dempsey. I'm not sure how to answer that question, 
Senator.
    Senator Webb. Let me give you a couple more data points.
    General Dempsey. It does surprise me. I've never looked.
    Senator Webb. The Air Force has 332,000. This isn't a knock 
on the Air Force. I see your assistant is getting a little 
nervous over there. But it's a question of how you properly 
manage the force.
    The Air Force has more brigadier generals than any of the 
other Services, by far. They have the same number of three-
stars. They have almost the same number of two-stars as the 
Army and more than the Navy and the Marine Corps combined. As I 
said, this is not a hit on the Air Force. It's just a question 
of how do you come up with this?
    General Dempsey. Your point's a good one, Senator. By the 
way, the Secretary of Defense, Secretary Gates, did take a look 
at general officer strength and required each Service--I think 
our number for the Army was we had to eliminate nine general 
officer billets. That's not the last state of that.
    Not by way of justifying it, I'll tell you how some of this 
has grown up. You've talked about Iraq and Afghanistan--when we 
build up new headquarters, they tend to be magnets for flag 
officers to run particular capabilities and functions within 
those headquarters.
    But if you're suggesting we should see ourselves and 
determine if we have our ratios right, I take the point.
    Senator Webb. I absolutely think you should, because the 
other piece of it is when force structure is reduced it's very 
hard to give up flag commands or flag billets. I would really 
hope you take a look at it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    I appreciate your service, General Dempsey, and look 
forward to working with you.
    One of Secretary Gates' final actions as Secretary before 
his retirement was a very important speech before NATO about 
NATO's future back in June. I want to point out some of the 
most important facts that he mentioned and ask you to respond 
to that, if you will. For one thing, he worried openly about 
NATO turning into a two-tiered alliance, where some members are 
willing to do the soft tasks and others the hard combat 
missions.
    He also said there is a very real possibility of collective 
military irrelevance and in light of this member nations must 
examine new approaches to boosting combat capabilities. He went 
on to point out that now, 2 decades after the fall of the 
Berlin Wall, the United States' share of NATO defense spending 
has now risen to more than 75 percent.
    Then he concluded with this very key point, and I will 
quote him directly: ``Indeed, if current trends in the decline 
of European defense capabilities are not halted or reversed, 
future U.S. political leaders, those for whom the Cold War was 
not the formative experience that it was for me, may not 
consider the return on America's investment in NATO worth the 
cost.''
    Now, it's often valuable for someone to be able to speak 
very frankly toward the end of a career, and I think Secretary 
Gates did just that. You're about to embark on a new aspect of 
your career, in which perhaps you have to be a little more 
diplomatic and more careful. But I would appreciate your 
responding to the points that Secretary Gates made.
    I wonder if you have any new ideas about reversing this 
continued trend and if you have any suggestions to this 
committee or this Congress as to what we might do to reverse 
this trend?
    General Dempsey. I'll take your caution about trying to 
figure out whether I'm at the beginning of the next 4 years or 
the end of my career.
    Senator Wicker. I'm assuming you're about to embark on a 
very important part of your career.
    General Dempsey. What you can count on, Senator, is that 
I'll answer and let the chips fall where they fall in that 
regard.
    I think that we have some competing narratives that we 
should acknowledge. On the one hand, we have a narrative that 
says we have to, based on the reality of a new fiscal 
environment, we have to do less and therefore rely on allies to 
do more. That is one narrative and we have to acknowledge it.
    Then we have the other narrative that you just described, 
which is they're not doing enough to sustain what they're doing 
now. The question is, as we go forward in determining whatever 
adaptations we make to our strategies, we have to do it in a 
way that doesn't paper over potential problems.
    One of the problems we could paper over is what can our 
allies provide. Now, in terms of new ideas, we've talked about 
ourselves as a joint force of being interdependent for years. 
How do we rely on each other and eliminate redundancies? This 
budget reality is going to cause us to look at that again, and 
I think it should cause us to look again at that issue vis-a-
vis our allies. It may be that we would enter into a discourse 
with our allies about capabilities that they provide that we 
may not provide, and in so doing we actually may have to become 
dependent on them for that.
    Now, I'm not advocating that. I am not even advancing it 
yet. But it may be that if there's a new idea out there in a 
new fiscal environment, it may be something to do with 
establishing an interdependent relationship with close allies. 
Is there risk there? Absolutely. Is there potential opportunity 
there? I think so. But in answer to your question, I think 
that's where we find ourselves today.
    Senator Wicker. Let's take that down, then, to the specific 
instance of Libya and the frustration that many of us felt in 
coming to a consensus over there. Do we risk our adversaries or 
our competitors finding ways to place the interests of NATO 
member countries against each other in arriving at consensus, 
and what observations would you draw from your general 
statement down to the specific situation that we're in right 
now with Libya?
    General Dempsey. I think you've touched on it, Senator. As 
a consensus organization, it is far more difficult to find end 
states that are acceptable and achievable to all members. 
That's the nature of an organization of that size that's built 
on consensus.
    On the other hand, when you can achieve consensus with an 
organization like NATO, it's pretty powerful and pretty 
compelling and pretty persuasive. I think as we go forward, as 
I mentioned, we have to be clear-eyed about not making 
assumptions that could from their very inception be proven 
inaccurate. I think it's going to require a different kind of 
transparency.
    Senator Wicker. I wish you very much success in that 
regard, and I hope if you have further suggestions for this 
Congress you will work with us on that, because I share 
Secretary Gates' concern and I don't know when the tipping 
point might be. But we do have budget concerns in this country 
and we're bumping up against them within a week. For the United 
States to expend 75 percent of the combat funds seems to me a 
situation that has to change.
    Let me ask you a very specific question about the culture 
that Services nurture among our young officers and NCOs with 
regard to foreign language study and programs that enhance 
global awareness. Do you have any ideas about how we might do a 
better job of incentivizing activities across the Services? My 
son happens to be a second lieutenant in the U.S. Air Force 
with a Mandarin language proficiency. Do you think we're using 
the universities and the great resources of our country enough, 
or is there a different way that we can be achieving a larger 
cultural awareness and language proficiency across the 
Services?
    General Dempsey. I absolutely do, Senator. I think to the 
extent we can develop our young leaders to have the kind of 
global awareness, even if it is manifested in particular 
regional expertise, whether it's Asia or wherever, I think we 
will do two things: One, we will make ourselves far better 
prepared for an uncertain future. We found ourselves short in 
cultural awareness and language capability in Iraq and 
Afghanistan for a very long time. I think that as we now have 
the time to commit to the kind of things you're talking about, 
we should. That is absolutely, I would describe it as one of 
the adaptations we need to make to our leader development 
programs.
    The other thing we'll do in so doing is we'll keep these 
kids interested. They want to know what it is we need them to 
do, and it's not just about turning wrenches or providing 
lethal effects. They want to know that they are developing, 
that they are growing, and that development and growth is 
valued inside the Service.
    The last point I'll make is I think we're going to be able 
to do exactly what you say. The reason we haven't in the last 
10 years is we've been meeting ourselves coming and going. 
We've been extraordinarily busy and so we haven't taken the 
time necessary, in particular in expertise outside of Iraq and 
Afghanistan.
    Second, our promotion boards, for example, in wartime 
always tend to value most the current fight. I can only speak 
for the Army, but if you look at our promotion boards they have 
tended to reward time in the saddle in Iraq and Afghanistan 
disproportionate to potentially what we need for the deeper 
future. My commitment to you is that, if confirmed, I will be 
not only the Chairman, but I will believe myself to be the 
steward of our profession, that is the profession of arms, for 
all Services and look dutifully and carefully at how we're 
developing our leaders for the future.
    Senator Wicker. Thank you, sir. Tell us what you need and 
we'll try to provide it for you.
    Thank you.
    Chairman Levin. Thank you very much, Senator Wicker.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, General. Good morning, Deanie. It's been a 
treat to get to know the two of you in this process and 
discover your connections to Colorado and your love of our 
wonderful State, the Centennial State, and I look very much 
forward to working with you when you're confirmed.
    If I might, let me pick up on Senator Wicker's line of 
questioning and discussion, General. I had a chance to ride in 
yesterday from the airport with former Senator Hart, who's well 
known for his strategic thinking along with a lot of other 
retired Senators in both parties, and of course retired 
military officers.
    What have you learned about the last 10 years? What do you 
think are the most important lessons that stare us in the face 
and some that aren't so obvious, because it is easy to fight 
the last war, and yet the world is undergoing enormous change 
from the Middle East to the events we see in China, and on and 
on.
    If you'd share for a couple minutes your thoughts on some 
of the lessons.
    General Dempsey. Thank you, Senator. Again, these are very 
personal lessons, not to be interpreted as criticism of 
predecessors or anything else, because, by the way, in some 
cases I was the one who fumbled a ball here or there. I think 
that one of the lessons of the last 10 years of war ought to be 
that we can't look at issues through a soda straw, in 
isolation. They don't exist that way.
    Looking back on it, at least my own personal view about 
Iraq in 2003 was that Iraq had a particular problem and it was 
a regime that was destabilizing the region and that we should 
take action. It was my recommendation that we should take 
action to change the dynamic inside of Iraq and that the region 
itself would become more stable. I'm not sure it turned out 
that way. Probably it is, but it didn't happen exactly as we 
intended it, and that's because I don't think we understood--
let me put it differently.
    I didn't understand the dynamic inside that country, 
particularly with regard to the various sects of Islam that 
fundamentally on occasion compete with each other for dominance 
in Islam, so the Shia sect of Islam, the Sunni sect of Islam. 
When we took the lid off of that, I think we learned some 
things and I'm not sure we could have learned them any other 
way. I don't know. I've reflected about that a lot.
    But I learned that issues don't exist in isolation. They're 
always complex. I've been scarred by rereading a quote from 
Einstein, who said: ``If you have an hour to save the world, 
spend 55 minutes of it understanding the problem and 5 minutes 
of it trying to solve it.'' I think sometimes, in particular as 
a military culture, we don't have that ratio right. We tend to 
spend 55 minutes trying to solve the problem and 5 minutes 
understanding it. That's one of the big lessons for me in 
developing leaders for the future, not only in the Army, but, 
if confirmed, in the joint force.
    Another one is the degree to which military operations in 
particular, but probably all of them, have been decentralized. 
You'll hear it called various things: decentralized, 
distributed operations, empowering the edge. Whatever we call 
it, we have pushed enormous capability, responsibility, and 
authority to the edge, to captains and sergeants of all the 
Services. Yet our leader development paradigms really haven't 
changed very much. They are beginning to change.
    But I think that second lesson, on the enormous 
responsibility that we put on our subordinates' shoulders, has 
to be followed with a change in the way we prepare them to 
accept that responsibility. I think those would be the two big 
lessons for me.
    Senator Udall. Thank you for sharing those, and I look 
forward to hearing more of your insights. You're right, we ask 
particularly personnel on the front lines now to be educators, 
be diplomats, be aware of civil affairs, cultural, and 
historical trends, and on and on and on and on. Every single 
soldier, marine, airman, and sailor presents the face of 
America. I look forward to working with you on what I see as an 
opportunity.
    Let me turn to a related distributed concept, which is in 
energy. It's a real interest of mine. I think increasingly the 
committee is spending more time looking at how we use energy 
more effectively. We know that saving energy saves lives, as 
Admiral Mullen has put it so well. We know that a good quarter 
of our casualties have been tied to fuel convoys and other 
kinds of convoys.
    How do we help you develop a strategy where we have more 
fight with less fuel? Please share your thoughts on energy with 
the committee.
    General Dempsey. First of all, I agree with you, Senator. 
Again, I'm at a bit of a disadvantage in this regard, speaking 
just about the Army now, but that's what I've been working. We 
have some energy goals that both DOD have established, but that 
we've established for ourselves as well. In the two broad areas 
of institutional energy--that's how we manage our posts, camps, 
and stations--we have six, maybe more, prototype installations 
that we want to achieve a net zero energy status. One of them 
happens to be in your State. We're moving along to try to see 
how we can improve our standing vis-a-vis institutional energy.
    The other one is operational energy. That's really the one 
you're speaking to most clearly with how do we keep soldiers 
off the road in supply convoys because we've become more energy 
efficient. Every one of our recent acquisitions and certainly 
every one going forward for vehicles or other equipment that 
have an energy demand are always done with a key systems 
attribute, is the term, related to energy. The Ground Combat 
Vehicle has an energy target for its design.
    But that's sort of the upper end of it. The lower end of it 
is batteries. I'll give you one vignette that might fascinate 
you. In pushing responsibility to the edge, we've pushed all 
kinds of emitters--I'll just call them ``emitters'', but it 
could be a Blue Force Tracker, it could be a data collector, it 
could be a full-streaming video, it could be a set of optics, a 
night vision device, whatever it is. But they all have a power 
demand.
    In so doing, we see the benefit to the soldier and it makes 
him more capable, but we often don't see what it does in the 
aggregate to their ability to carry the batteries. An infantry 
platoon today for a 72-hour mission has to carry 400 pounds of 
batteries. Now, what they do, of course, is they don't carry 
them. You can follow them in some cases like breadcrumbs 
through the Hindu Kush.
    We have to get better at that and figure out what is the 
energy requirement, how do you deliver it at a lighter load, in 
a more efficient manner, so that the soldier both becomes more 
capable and we don't overburden him. I can just assure you we 
are actively pursuing this, and I think it has implications 
across the joint force as well.
    Senator Udall. I agree. When we find some of these 
breakthrough applications for batteries, there will also be 
utility in the civilian sector as well. I forecast that the 
military will lead us more broadly to more energy self-
reliance.
    I'll end on this note. My time's expired. I think you're 
well aware of the couple of Marine Corps ex-forward operating 
bases that are now being utilized, and in the end they're 
actually creating an environment that is much more than 
experimental. Those environments, I'm learning, are more 
secure. They have a smaller footprint noise-wise, light-wise, 
energy-wise, and therefore the mission is more easily 
performed.
    I look forward to working with you on this.
    Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Sir, we've already met and discussed a lot in private. I 
have just a few follow-up questions. Senator Ayotte and I 
actually plan to have a bill and are deeply concerned about the 
evidence that taxpayer money that was intended to be used for a 
transportation contract has in fact ended up in the hands of 
the Taliban, and we want it to stop. Not only are we trying to 
fund our own needs; I guess we're funding the Taliban's needs, 
too.
    I was wondering if you could comment on that and what your 
thoughts are about lowering the risk involved with our reliance 
on contractor support and the money trail that goes along with 
it.
    General Dempsey. Yes, thanks, Senator. I saw the same 
report in the media. I haven't yet had time to get the GAO 
report and understand the details. But I'll tell you, I share 
that concern completely. In fact, in Iraq when serving as the 
Commander of Multi-National Security Transition Command-Iraq, 
now called NATO Training Mission Iraq, and having approximately 
$5 billion a year to build the Iraqi Security Forces, it was 
among my gravest concerns.
    I had a concern about building them. I had a concern about 
enabling them and integrating them with our forces. But there 
wasn't a day went by that I didn't worry about where the money 
was going, because it's a very opaque culture in which we deal 
in Iraq and Afghanistan.
    Now, what we've done. We've increased the number of 
contractors enormously. We've formed Contracting Command. 
Again, I'm speaking for the Army, but I know the other Services 
are doing this as well. In our captains' career courses, 
they're taught contract oversight.
    I probably should have mentioned, in response to the former 
question, what are one of the big lessons of the last 10 years 
of war? One of the big lessons of the last 10 years of war is 
that when we apply these kind of resources we have to have the 
right kind of contract oversight.
    I hope what I find in the GAO report is that it's a lagging 
indicator, in other words that it might be a couple of years 
ago, before we took the measures I just mentioned. But I don't 
know. I share your concern about it.
    Senator Brown. Thank you, sir.
    Also, I want to just touch upon and follow up with Senator 
McCain and others: $100 billion was the initial, now it's $400 
billion, $800 billion; I'm hearing $1 trillion. As someone 
who's still serving, I see in the Guard and Reserves a certain 
amount of things we could probably do better and more 
efficiently. But I'm deeply concerned that hasty, across-the-
board cuts will dramatically affect the safety and security of 
the men and women serving.
    I would echo Senator McCain's general premise, in that 
whatever you're planning on doing or whatever recommendations 
you're considering making, I know we're trying to reach a 
number, but when it comes to the safety and security of our men 
and women I don't think I can put a number on that. I think we 
need to, if we're going to commit to these wars and we're going 
to commit our men and women to do it, we have to give them the 
assets to do just that.
    Not really a question, but my hope is if you're running 
into roadblocks or you need to adjust and adapt, then please 
come back to the committee so we can work with you in trying to 
do it differently and shift maybe the burden to other areas of 
the government before we start jeopardizing the safety and 
security of our men and women.
    That being said, I am in the Guard and I do know that the 
Guard and Reserves perform a function at a fraction of the cost 
of the money used for the Active Army and all other Services. 
We're somewhat leveraging the skills and experience of our 
citizen-soldiers and airmen. What's your plan? Is there a plan, 
in order to save money, to potentially shift and expand Guard 
and Reserve opportunities, or is that in the bailiwick or what?
    General Dempsey. Senator, we are closer to our Reserve 
component--that's both the National Guard and the U.S. Army 
Reserve. I'm speaking for the Army, but I'm sure that General 
Schwartz would echo this. We're closer to the Guard and Reserve 
than we've ever been. The question now becomes, as the demand 
goes down and as potential resource constraints collapse around 
us, how do we maintain that relationship, how do we articulate 
what capabilities have to be available in the Active component, 
which capabilities have to be available in the Guard and 
Reserve?
    One of the things I mentioned in the response to the 
advance policy questions, was I think there is an opportunity 
here to reconsider and adapt our relationship with the Guard 
and Reserve, so that as we become smaller, which seems to me to 
be inevitable at any one of the numbers you mentioned. It's not 
just taking the existing structures and the existing 
relationships and shrinking them, but rather adapting them to 
actually give the Nation options, because that's ultimately our 
responsibility, is to provide options for the Nation in meeting 
its security needs.
    My commitment to you is that the issue of the future 
relationship of Active, Guard, and Reserve will be at the 
forefront of any decisions we make in responding to these 
budget issues.
    Senator Brown. I would also ask, if the goalposts used to 
measure our national objectives in Afghanistan change, which 
they apparently are, and if you need a new set of requirements 
based on those changes before the end of the summer, I'm 
hopeful you'll let us know, so we can help in that regard, as 
Senator Wicker pointed out, too. Let us know what the needs 
are.
    Finally, I have noticed, being on the Veterans Affairs 
Committee as well, that many of the soldiers that are coming 
home--and the unemployment rate amongst military folks, Guard 
and Reserve in particular, is dramatically higher. Even though 
many of them have higher technical expertise, leadership 
skills, and military experience, they feel they're ultimately 
disqualified for lack of civilian equivalent certificates.
    I hear it over and over again. I'm wondering if there's a 
system or if there's something that you will be able to do that 
will help members translate their military-specific skills and 
vocational experience and expertise to the civilian sector? 
Nothing for today, but just something to think about, if 
there's a way we can have someone reach out and work that 
through, because when you look, the State of Israel does it. 
Employers actually seek out those folks because they have a 
higher work ethic, many times they're more experienced. Yet 
here, especially because of the fear of redeployment, there's 
an artificial wall, I feel, sometimes. Just a thought, and I 
wish you well, General.
    Thank you.
    General Dempsey. Thank you, Senator. One of your colleagues 
is helping us with some legislation that might help with that, 
in regard of transition for veterans. Some of the reason that 
we're having this problem is that we haven't paid as much 
attention as we need to our Army again, career and alumni 
program.
    Senator Brown. You can talk about the Army all you want. 
[Laughter.]
    General Dempsey. But anyway, we're alert to the challenge, 
working both internal to the Army as well as with this 
committee to try to determine how we can do a better job.
    Senator Brown. Thank you, sir. Good luck.
    Chairman Levin. Thank you, Senator Brown.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, General Dempsey. Just having the opportunity to sit 
here and listen to you, you've been really impressive today. 
We're lucky to have you in the service of our country. I think 
you are a student of history. You know the details of reality 
that the military faces, and when you don't you're honest 
enough to say you don't. I'm very grateful that the President 
has nominated you and I'll be proud to vote to confirm you, I 
suppose unless you say something from here to the end of the 
hearing that I think is over the edge. But I doubt that.
    This is a very moving picture and you used it to tell a 
powerful story of trust, the trust of his family back home, 
trust of the others in his unit, and the trust that he has when 
he calls somebody is going to be there.
    I was thinking, as I lead into the first topic I wanted to 
talk about, there's another element and it wouldn't be called 
trust, it's the certainty, a different kind of certainty, which 
is the certainty that those who wish us ill, our enemies, have 
that if they cross lines that we will respond, that they won't 
get away with it. That's not trust, but it's a certainty that 
we're credible.
    In that regard, I was really struck by your response to one 
of the advance policy questions submitted by the committee, in 
which you spoke about the threat posed to the United States by 
Iran, and you said, ``With its nuclear activities and its 
surrogate activities in southern Iraq, there is a high 
potential that Iran will make a serious miscalculation of U.S. 
resolve.''
    I totally agree with you and I do think in the case of 
southern Iraq, where the Iranians have been training and 
equipping Shia extremists, who then go back and have been 
responsible for the deaths of a lot of Americans, that they 
have been making a miscalculation. In some sense it's been 
based, unfortunately, on the fact that they haven't paid a 
meaningful price up until now for doing the things that they've 
done that have been so harmful to so many Americans in uniform.
    I wanted to say, one, I appreciated the statement. Two, I 
wanted to ask you to elaborate on what you meant when you said 
that there was a high potential that Iran will make a serious 
miscalculation of U.S. resolve.
    General Dempsey. Thank you, Senator. Again, I've been out 
of Iraq for about 4 years now. But that doesn't mean I've lost 
touch with it or the leaders with whom I have remained engaged. 
It's their observation, in some cases supported by 
intelligence, but it's their observation that Iran's activities 
in southern Iraq are intended to produce some kind of Beirut-
like moment and in so doing to send a message that they have 
expelled us from Iraq.
    What I wanted to make clear in my response, and as well 
today, is that, while we have soldiers in southern Iraq--and, 
my view is that when you put the U.S. military, whatever 
Service you place, but you place them someplace, it is the 
clearest signal of national resolve we have.
    Senator Lieberman. Right.
    General Dempsey. As long as we have those soldiers there, 
we're going to do whatever we have to do to protect them, and I 
want to make sure that's clear to everyone.
    Senator Lieberman. I appreciate it. I agree with you. It 
follows on some pretty strong statements made in the last 
couple of weeks by Admiral Mullen and Secretary Panetta about 
the risk that Iran is taking by this behavior in supporting the 
Shias who are going back into southern Iraq and killing our 
people. Obviously, it's important once the people at the top of 
our military, like the three of you, say that, that Iran takes 
it seriously or suffers consequences.
    I thank you for that, and I know you're a serious man and I 
know your word is credible. I hope the Iranians understand 
that.
    I wanted to spend just a few minutes on the budget 
questions. I thought you said something, if I heard it right 
earlier, that was really interesting and important for all of 
us to think about. Obviously, we're facing a big budget crunch 
and everybody is being asked to contribute to helping the 
country get back into balance. As far as the military is 
concerned, this is not like the period at the end of the Cold 
War, because we are actually still involved in combat in Iraq 
and Afghanistan, where we're drawing down our troops. But the 
larger war with the Islamist extremists who attacked us on 
September 11 goes on on many different fronts in the world.
    I wanted to make sure that I caught you right, that's what 
you were intending to say, that this is a tough time to cut the 
military budget drastically because we are at war.
    General Dempsey. That is my professional judgment, Senator. 
If I could reflect my own anxieties with you; can I share my 
anxieties with you for just a moment?
    Senator Lieberman. Yes, just lay down on the couch. 
[Laughter.]
    General Dempsey. This is a three-legged stool. On the one 
hand, it is the responsibility of the military to provide the 
Nation options, and that means we have to have capabilities of 
a certain size, of a certain quality, and in a certain quantity 
because of the rotational requirement to sustain our effort. 
That's one leg of the stool, if you'll permit me.
    Senator Lieberman. Right.
    General Dempsey. The other leg of the stool, though, is we 
demonstrate that we are sensitive to the challenges of the 
broader Nation. We're all citizens as well as soldiers.
    Senator Lieberman. Right.
    General Dempsey. If we don't show that we recognize that 
the Nation has a significant economic problem and then do our 
part, whatever that part may be, to help solve it, we will be 
seen as simply putting up barriers and defending ourselves 
against what Eisenhower famously called the military-industrial 
complex. That's the second leg of the stool.
    The third leg of the stool is we have an All-Volunteer 
Force with whom we must keep faith. It is that element of trust 
that I described earlier that will keep that All-Volunteer 
Force in the fight, inspired, in the service of their country 
over time.
    As we go forward, kind of the way I will assess how much of 
a budget reduction we can absorb will be on the basis of that: 
How much capability does it provide? Are we contributing 
something, so that we remain connected to America? Can we 
preserve the All-Volunteer Force? On that basis, I think we'll 
be able to make a pretty clear determination.
    Senator Lieberman. I appreciate that. That's a very 
balanced answer and I think you have your anxieties well in 
control and I would certify to your mental health.
    Thanks very much, General. Good luck.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I very much want to thank you, General Dempsey and Deanie, 
for your service, and appreciate your coming before the 
committee today.
    I wanted to echo on the question that Senator Brown had 
asked you about the Guard and Reserve and the role of the Guard 
and Reserve. I notice from your written comments you 
acknowledge what I think we all have seen has been the case, 
that really we haven't used the Reserve as a Strategic Reserve 
in these conflicts; we used them as an operational force.
    There was a need to do it, but there's also been some need 
to cost-effectively use the Guard. As we go forward in this 
difficult fiscal climate, how do you anticipate preserving that 
readiness that we have as a result of having the Guard and 
Reserve acting as an operational force, and how do you 
anticipate working with the Guard and Reserve to seek their 
feedback as you make some of these difficult choices going 
forward?
    General Dempsey. Thank you, Senator.
    We are working very closely with the Guard and Reserve. If 
there's something we're withholding from them, it's not 
apparent to me, because I've said that it's back to this 
relationship of trust. It also exists in our Army. It has to 
exist, and the other Services as well with their Reserve 
components.
    I would like to just elaborate a bit on what you said about 
the cost-effectiveness, because there is a certain cost-
effectiveness to the Guard and Reserve, but truthfully that's 
not why we have them. We've had them for centuries, but after 
Vietnam, General Creighton Abrams made the conscious decision 
that we would never allow ourselves to go to war again without 
the Reserves. He did that because he recognized that as we 
transitioned to an All-Volunteer Force the Guard and Reserve 
are an extraordinarily important part of our ability to stay 
connected with America.
    As we sit here today, the choice before us is not will we 
have the participation of the Guard and Reserve. The reality 
is, Senator, we cannot go anyplace, cannot, without the Guard 
and Reserve. We've built our structures that way. Two-thirds of 
our combat power is in the Active component, a third in the 
Guard. But two-thirds of our sustainment capability is in the 
Guard and Reserve and only a third of it in the Active 
component.
    We built our Army consciously that way so that we would 
never again go to war without America. As we go forward with 
these budget issues, it's not about are we going to make a 
stark decision to favor one component over the other. We have 
to find a way to balance them.
    Senator Ayotte. That would include, obviously, readiness 
across the Active Duty as well as the Guard and Reserve, as the 
holistic view of our readiness in the future.
    General Dempsey. Yes, Senator. Again, to be completely 
transparent here, we have built some expectations on the back 
of OCO, for example, on the level of readiness we can have in 
all components. We've never had, really never had an army any 
component, Active included, that was 100 percent ready to go 
all the time. That was also true in the Guard and Reserve.
    But with OCO now, we've been able to raise the level of 
equipping, of training, and every aspect for all components. 
All of that will be affected to some degree as we lose the 
ability to apply OCO to our Army. But it'll be applied fairly, 
equally, and with a specific outcome in mind, I promise you 
that.
    Senator Ayotte. I thank you and appreciate your comments 
about how important the Guard and Reserve is to our readiness 
and to our country and our national security.
    I also wanted to ask you, as the Chairman of the Joint 
Chiefs of Staff, one of the roles, very important role that you 
have, of course, is advising the Secretary of Defense and the 
President on a variety of Defense Department issues and 
policies. An issue that I've been very concerned about is our 
detention policy, our interrogation policy.
    During a June 28 hearing I asked Admiral McCraven if it 
would be helpful, 10 years into the war on terror, to have a 
designated long-term detention and interrogation facility for 
terrorists, for groups like al Qaeda in the Arabian Peninsula 
and al Shabab. I wanted to ask you if you agree whether it 
would be helpful to have a designated long-term detention and 
interrogation facility, because it seems to me that we've had 
to make some ad hoc decisions and that puts our military 
leaders in a difficult position.
    General Dempsey. It could be, Senator. I'm not being 
elusive. I'm reflecting my own, where I am in my understanding 
of the issues. I say it could be because I think where these 
individuals are placed and whether what we have in our 
detention of them rises to the level of evidence vice simply 
intelligence, because there's a huge difference, if you want to 
talk about the rule of law, on what's based on intelligence and 
what's based on evidence. I think we have to understand how 
agile we need to be and whether our current policies and 
locations allow us to do it.
    The other issue that plays as well is recidivism. That is 
to say, when we have these individuals in custody, return them 
to their nations, do they just simply return back to the fight?
    This is another one of those issues where I, because I 
haven't been involved with it, I haven't studied it to the 
extent I need to to engage you as articulately as I should, but 
I will.
    Senator Ayotte. I appreciate it. I just want to highlight I 
think a couple of examples--the case of Warsame, who is a 
member of al Qaeda in the Arabian Peninsula and al Shabab, who 
was kept on a ship for 2 months for interrogation and then 
brought to the United States. I think we basically, as Admiral 
Winnefeld said, for now we're making do, and I don't think that 
making do is good enough, particularly since we're not going to 
be able to keep every single individual on a ship. That is a 
short-term type of fix.
    I would hope that you would look at this as a very 
important security issue. As you mentioned, the recidivism 
rate, 25 percent of those that have been released from 
Guantanamo have gotten back in the fight against us.
    In that vein, I wanted to ask you--my time is almost up, 
but about a particular case, to ask you to look into. That is 
Ali Dakduk, who is someone that myself and 18 other Senators, 
many of whom serve on this committee, he is an individual that 
was being held in Iraq and is also accused of collaborating 
with Iranian agents and Shiite militias to kill American 
troops. We received a report that he was going to be released 
back to the Iraqis. People are very concerned. The 19 Senators 
that signed that letter, we're concerned that releasing him 
back to the Iraqis is like releasing him back into the theater.
    This is again another case I would ask you to look 
carefully at, because it is one that demonstrates again why we 
need a detention facility that ensures the security of these 
individuals so that they don't just go back to other countries 
that will just release them and then we'll be fighting them 
again.
    General Dempsey. Thank you, Senator.
    Senator Ayotte. Thank you, General.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, General and Deanie, very much for your kind 
hospitality. We appreciated it very much the other day, 
stopping by unannounced, and you're very kind.
    Sir, with that, I would concur with Senator Lieberman that 
you're a sound person and I think things will be very well. I'd 
like to ask a few questions.
    One is following up on Senator Ayotte. She asked about the 
Guard. I know there's been discussions and concerns about would 
the Guard ever have a post on the Joint Chiefs of Staff or be 
of equal footing on that. I know you've been a little bit 
receptive in thinking about that, and I didn't know what you 
thought impediments might prevent that from happening or if 
there's a possibility.
    General Dempsey. I would describe my current position as 
being open-minded, Senator, but concerned. I'll express concern 
on two fronts. One is, of course, I just finished, rather 
inelegantly perhaps, describing how close we are, speaking 
again for the Army, but the need for the Guard. I just don't 
know what that would do to the relationship if we had now two 
four-stars overseeing the same force, because we aspire to be 
one force.
    The other one is more pragmatic, and that is what gives me 
my authority as the chief, is the budget. If it weren't for the 
budget, no one would even pay attention to me. But they pay 
attention to me because I have to deliver something for the 
Nation using the resources I'm given. I'm held accountable for 
delivering it.
    I don't know what that would mean to a potential National 
Guard role. All the Service Chiefs, by the way, are in that 
same situation. They derive their authority both from the 
title, but also from the fact that they manage their Service's 
budget. If we have a National Guard four-star on the Joint 
Chiefs, he's not accountable because he doesn't have anything 
with which to deliver capability, and so I'd have to understand 
how that would be sorted out.
    Senator Manchin. The other is concerning financial 
responsibility, but also the situation that we have, and I 
think that Senator Brown touched on, the $10 million a day that 
was reported leaving Kabul in suitcases and never got to where 
it was needed--which is about $3.6 billion a year, and not able 
to have a handle on that.
    I think you've seen or you've been hearing about our debt 
discussions that we've had. Both Democrats and Republicans have 
anticipated a trillion dollars or more in savings if it's not 
spent on the war, another $400 billion in savings on interest 
that you would be spending on the trillion. That doesn't make a 
lot of sense to me because we were never anticipated to be 
there that long. Someone anticipated that we were going to 
spend that much and now they're taking it as a savings.
    Can you give me your thoughts on that? Does it make sense 
to you at all that we would be saving something we shouldn't 
have been spending and now they're all counting it and booking 
it?
    General Dempsey. Senator, if you would allow me, I would 
take personal pleasure in telling you I'm not an economist nor 
a lawyer, and so I can't go anywhere near that question. But I 
will say that we have done a great deal of work to try to 
figure out how to get on top of this issue of spending in Iraq 
and Afghanistan, and I'd be happy at some point to come and 
chat with you about that.
    Senator Manchin. Do you have an idea basically of how you 
can secure the corruption that's going on? As we know, 
Afghanistan--and I think you know my personal feeling is that 
we should get out as quickly as we possibly can. It's not going 
to get any better, and they'll steal as much as they can get 
their hands on, and they've proven it every chance they've had. 
But how we can stop this blatant type of thievery?
    General Dempsey. Yes, sir. We do have some programs. I sent 
probably our best brigadier general over about a year ago, 
Brigadier General H.R. McMaster, to stand up an anti-corruption 
task force and campaign. It's made some progress. In fact, I 
ought to have him come back and chat with you about what he's 
accomplished.
    I wouldn't suggest that anyone would ever drive corruption 
in that part of the world to zero, but we can certainly get a 
lot closer to zero.
    Senator Manchin. You and I both talked about contracting, 
the amount of contracting that goes on in the Defense 
Department, and the cost of contracting and a lot of fraud, 
abuse, and waste there. I think you've shown a desire where you 
want to look into that in a much more critical way.
    I would say also on the flight services, I know that we're 
contracting all of our flight services out to take our goods 
into that area. With that, with NATO also, has there been any 
types of decisions or discussions on how we could best curtail 
that or use our own equipment, or are we just too strapped for 
that?
    General Dempsey. I don't know the specifics, sir. I would 
simply say that I think we have to keep a contracting option 
open because we would very quickly and very clearly overwhelm 
our ability to transport the things we need, ground or air, 
with our own organic resources. I think the issue is really not 
walking away from contractor support. I think it's getting it 
under control.
    Senator Manchin. Finally, I would ask a question--and I 
truly believe that--on the draft, what your opinions may be or 
if you have a position, but just your thoughts on the draft. Of 
course, those of us sitting on this side, living through 
Vietnam, the draft pretty much brought that skirmish to an end. 
I would assume that if we had the draft today we would be 
taking a much more critical look at what we're doing over there 
than we are as we proceed on now. So your thoughts on the 
draft?
    General Dempsey. Sir, this comes up from time to time 
throughout my career. That would very clearly be a political 
decision, to go back to a system of universal suffrage. What I 
would offer you at this point in a discussion would be that I 
think the Nation is better served by an All-Volunteer Force, 
and I could elaborate on why I believe that. But I think we are 
better served by an All-Volunteer Force and would seek to find 
ways to preserve it in an era of fiscal constraint, rather than 
move at this point to a draft.
    Senator Manchin. My reasoning for that question was because 
of all the deployments that the people, families, are basically 
going through. It's a tremendous hardship, I know, to them and 
their families, especially in the Guard back home and to our 
small States that have a great dependency on the Guard. But 
with that happening and the pressure that's put upon them and 
now with three wars going on, there comes a time when we spread 
ourselves so thin that the draft is the only option that I 
think that we would have if that's the policy we continue down, 
unless we intervene and stop these senseless wars.
    General Dempsey. Without commenting on the wars, because 
sometimes I think, Senator, wars choose you, you don't choose 
them. That's just a professional judgment. But I think that as 
we look at the lessons of the last 10 years of war, I think 
we'll find that the All-Volunteer Force actually performed 
better and more resiliently than I think its crafters thought 
it would back in the early 1970s.
    But I think we need other options for the Nation when we 
enter into conflict that can escalate and that can take longer 
than we thought.
    Senator Manchin. Thank you, sir.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Begich.
    Senator Begich. Thank you very much.
    General, thank you for your willingness to continue your 
service at this level, and I look forward to approving you and 
again looking forward to your service. I first want to say 
thank you.
    I'm actually going to do one quick thing on Afghanistan to 
follow up on Senator Manchin. Tell me, from your perspective in 
regards to the security forces that we and our allies are 
working to train and ensure that they have their own security 
force. The question I always have--I know they are growing 
them, but what is their retention rate of those folks that, 
once trained by us and doing the service for security at 
different levels, what's the retention rate that they're able 
to maintain? At the same time, are they increasing their 
literacy rate? Because I know we were very successful in Iraq 
because the literacy rate was also very high. Here it's very 
low. Can you comment on both those elements, retention and 
their literacy rate?
    General Dempsey. Yes, I can, sir. Retention has shifted 
over time, for two reasons. One is in the early days we were 
paying them at a rate that I think was probably too low to keep 
them. That was changed about 2 years ago.
    The other factor is seasonal. We have to remember that 
these young men in Afghanistan and to a lesser extent in Iraq, 
but absolutely in Afghanistan, they're agrarian and so when the 
planting and harvesting seasons come and go, the attrition 
rates wax and wane accordingly.
    Now, that said, General Caldwell, who is currently in 
charge of our NATO Training Mission-Iraq, monitors the 
attrition issue constantly. We also think the literacy issue is 
related to attrition.
    Senator Begich. Absolutely.
    General Dempsey. I don't have the number committed to 
memory, Senator, but it's more than 10,000 and growing, the 
number of soldiers we've risen or helped achieve an eighth 
grade, as I recall it, level of literacy.
    These issues are all related, but your concerns about 
attrition are shared by us, as well as the concern for how we 
develop leaders, because you can develop a basic rifleman; it's 
a little more challenging to develop the leaders to lead them.
    Senator Begich. Can you share--you don't have to do it 
right now, obviously, but if you could get to my office--maybe 
what you see those trend lines look like over the last several 
years and where we're going in literacy attainment within our 
security force that Afghanistan has, as well as the retention 
rate?
    General Dempsey. Yes, sir.
    Senator Begich. Will you do that?
    General Dempsey. Yes. The last time I touched on it the 
trend line on attrition was trending positive, which means we 
were gaining control of it. The trend line on literacy training 
was also trending positive, but that is an enormous slope to 
climb, for all the reasons you suggested. But both trends are 
positive.
    Senator Begich. Good. If you could share that with us that 
would be great.
    [The information referred to follows:]
Attrition:
    Attrition is an ongoing issue within the ANSF. ANA attrition rates 
from June 2010 to June 2011 averaged 2.5 percent or 3,817 personnel per 
month. ANA recruiting rates averaged 4.2 percent or 6,241 personnel per 
month. Attrition will not prevent the ANA from achieving their 
projected manning fiscal year 2011 goal of 171,600 personnel. This 
graph displays ANA strength, manning goals, recruiting and attrition 
from June 2010 to June 2011.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    ANP attrition rates from June 2010 to June 2011 averaged 1.4 
percent or 1,682 personnel per month. ANP recruiting rates averaged 2.8 
percent or 3,248 personnel per month. Attrition will not prevent the 
ANP from achieving their projected manning fiscal year 2011 goal of 
134,000 personnel. This graph displays ANA strength, manning goals, 
recruiting and attrition from June 2010 to June 2011.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Literacy:
    Illiteracy is one of our greatest challenges in developing the 
ANSF. NTM-A is building a National Army and National Police force out 
of a population that has a 28 percent literacy rate.
    Approximately 86 percent of all new recruits coming into the ANSF 
are illiterate. In order to address this issue, NTM-A has established 
literacy programs throughout the ANSF. The literacy program began in 
October 2009. At the time there were approximately 13,941 ANSF (7,596 
ANA and 6,345 ANP) literate at a 1st grade level. On 28 July 11, the 
100,000th ANSF student graduated from 1st grade level literacy 
training. These students completed training and passed a certification 
exam. The ANA increased the number of personnel with 1st grade literacy 
by 634 percent since October 2009. The ANP increased the number of 
personnel with 1st grade literacy by 934 percent since October 2009.
    New recruits going through their initial training receive literacy 
training. Soldiers attending NCO and Officer training receive 
additional literacy training. There are training programs in place at 
ANSF forward operating bases throughout Afghanistan.

    Senator Begich. You just made me think of something 
additionally. Because I know the military does this. They 
always have a contingency plan about everything, plan A, B, C, 
all the way to Z. I'm assuming somewhere, and maybe it's not 
within DOD, but maybe it's a combo between DOD, State, and 
others: Assume the scenario we're out of Afghanistan; there is 
a financial cost that we're going to be committed to at some 
point, for all the reasons. Their economy can't sustain the 
security forces that we're training for and everyone else is 
training for. They don't have the money.
    Is there somewhere within DOD, State Department, or a 
combo, or one of the other agencies, that has looked at a 
scenario X that, out of Afghanistan, here is the U.S. 
commitment financially?
    General Dempsey. Yes, and I would add NATO.
    Senator Begich. NATO.
    General Dempsey. Because it's very clear that as we reach 
2014 that, as you suggested, there will be a lingering economic 
challenge for Afghanistan and we will have to assist. I say 
``we'' again meaning not just the United States.
    Senator Begich. The combination.
    General Dempsey. Right.
    Senator Begich. But we'll have a commitment.
    General Dempsey. I believe we will, yes, sir.
    Senator Begich. Do you know, is that something that's 
available at this point to review and what those costs might 
be? Is that something that you could get back to me, at least, 
with and determine where I need to direct that question?
    General Dempsey. Let me contact, if I could, Senator, the 
CENTCOM commander, who would essentially, as the combatant 
commander for that region, oversee that effort, and I'll see if 
I can put him in touch with you or if he can communicate with 
you through me.
    Senator Begich. That would be great. Thank you very much.
    Let me walk through a couple other quick ones. Obviously, 
in Alaska we care greatly about missile defense system, and I 
know the military has done some additional work and they're 
continuing to make some additional plans of finishing up some 
of the fields there and also some additional interceptors.
    Can you give me your opinion of the missile defense system 
that's currently in Alaska, but also let me add another caveat 
to this. As we know, the system there deals with North Korea, 
the Pacific Rim, so forth, but also has reach to the east 
coast, but very last minute, last second kind of Iran issue.
    It's a two-part question: One, your thoughts on ground-
based midcourse defense for Alaska; but also, is there a need 
for a complementary system on the east coast to then finish the 
efforts of not only North Korea, but more robust in dealing 
with Iran? If you could answer those two pieces of the 
question?
    General Dempsey. Yes, sir. The current strategy calls for 
replicating what you would describe as an air defense 
capability on the West Coast, but replicating that in Europe 
because of the flight plan of any missile that might be 
launched from Iran. There's also some, I'll describe them as 
very early, nascent discussions with Russia about sharing early 
warning and things that could be very positive.
    I think this work is ongoing and important, and I'll give 
it my full interest.
    Senator Begich. The system we have up in Alaska is 
important. You see where I'm going here.
    General Dempsey. I do, sir, and it is.
    Senator Begich. Very good.
    Let me move to another issue, the Law of the Sea Treaty. 
Some members that were here last week up for nomination for 
different positions within DOD, I was asking them the same 
question. We're one of the few countries that haven't signed 
onto this treaty. We're hanging out with Syria, Iran, and 
Libya. Those are the people that we're in company with who 
haven't signed also, which is not the company I care to keep 
and I'm sure you don't care to keep either.
    Can you tell me just your thoughts on the Law of the Sea 
Treaty from a military perspective? The complaint people have 
is that this gives up our sovereignty if we sign this treaty. I 
disagree with that. I think this helps our sovereignty, 
strengthens our sovereignty. Can you give me your thoughts on 
that?
    General Dempsey. I support the other leaders who have 
testified and attested to the fact that I think it will improve 
our standing and our security if we enter into the Law of the 
Sea Convention.
    Senator Begich. Thank you very much.
    My time is up. I have one question which I'll submit for 
the record. It's in this very tight budgetary time, where I sit 
on the Budget Committee--the military budget is a big 
challenge. We've dealt with some cuts that have to be dealt 
with. But how we balance that between personnel and assuring 
that we have a robust volunteer system and ensure that pay and 
benefits and retirements are there, at the same time how do we 
balance against some of the infrastructure. I have a more 
detailed question. I'll submit it to the record, but that's the 
gist of it, how you will manage that to make sure we have the 
fighting men and women that we need, but at the same time deal 
with some severe budget constraints. I'll just submit that for 
the record, if that's okay.
    General Dempsey. Okay, Senator. Thanks.
    Senator Begich. Thank you very much. Good luck.
    Chairman Levin. Thank you, Senator Begich.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Congratulations on your nomination. I know you will do a 
good job and your family's proud. This is a special time in 
your life.
    Iraq. There are increasing reports coming from Iraq that 
Iran is introducing weapons into Iraq, into Shia militia hands, 
explosively formed penetrators and more lethal rockets. Is that 
generally true?
    General Dempsey. I've heard both General Austin and others 
state that they have intelligence that suggests that is true, 
yes, Senator.
    Senator Graham. The argument is that they're trying to 
claim they drove us out of Iraq, the Iranians. Do you generally 
agree with that assessment?
    General Dempsey. I obviously can't speak for their 
motivations, but I will say that my contact with my colleagues 
in Iraq--and I'm talking about my Iraqi colleagues--many of 
them believe that's the case.
    Senator Graham. What is your message to Iran, General 
Dempsey?
    General Dempsey. It would be a gross miscalculation to 
believe that we will simply allow that to occur without taking 
serious consideration or reacting to it.
    Senator Graham. I think that is a very sound position. I 
doubt if the Iranians are watching, but they need to be 
listening, because I think it would be a gross miscalculation 
on the Iranian part to believe that you can be involved in 
killing Americans and nothing comes your way.
    Iraq. If the Iraqi Government requested additional troops 
to remain in 2012 in Iraq, do you think it would be wise for us 
to agree to that request?
    General Dempsey. I do, Senator.
    Senator Graham. I think there's plans in the works to try 
to come up with a formulation somewhere around 10,000; is that 
correct?
    General Dempsey. I don't know the number, Senator, but it 
would be a number where we could provide the capability that 
they would request, that we would be able to protect ourselves, 
and it would have to meet both of our Nations' mutual interest.
    Senator Graham. Right. One, they'd have to ask and we'd 
have to agree. But one of the concerns is the forces that we 
have along the Kurdish-Arab fault lines have paid dividends. 
There has been no real fighting, but there have been some 
skirmishes. I guess one of the things you would want to look at 
in terms of future troop presence is to have sort of a referee 
along those lines; is that correct?
    General Dempsey. I have heard discussion of that as one of 
the capabilities we might be able to provide for them if asked.
    Senator Graham. Now let's move to Afghanistan. There's a 
lot of talk about 2014. My view is that the drawdown of all 
surge forces by September 2012 has reignited the debate in 
Afghanistan and the region, is America leaving, and the enemy 
is seizing upon that drawdown schedule. But one thing that we 
could do in my view to reset that debate is to enter into a 
relationship with the Afghans, if they request it, post-2014.
    Several months ago I asked Secretary Gates about his view 
as to whether or not he believes it would be wise to have an 
enduring military, economic, and political relationship with 
the Afghans if they requested such a relationship past 2014. 
What he said regarding the security agreement, he said: ``A 
security agreement with Afghanistan that provided for a 
continuing relationship and some kind of joint facilities and 
so on for training, for counterterrorism, and so on beyond 2014 
I think would be very much in our interest. I think it would 
serve as a barrier to Iranian influence coming from the west. I 
think it would serve as a barrier to reconstitution of the 
Taliban and others coming from the border areas of Pakistan. So 
I think it would be a stabilizing effect, not just in 
Afghanistan, but in the region.''
    Do you agree with that?
    General Dempsey. I do, Senator.
    Senator Graham. As I understand, there are some ongoing 
negotiations between the Afghans and our government to have a 
stabilizing, enduring joint relationship on the military side 
past 2014; is that correct?
    General Dempsey. I've read that in the open press, Senator. 
I have not been brought into that dialogue, but I've read the 
same reports.
    Senator Graham. But as the senior military adviser to the 
President, if you get this job you would recommend that we go 
down that road to send the right signal to the Afghans and to 
the region; is that correct?
    General Dempsey. I would, Senator. That's without putting 
any assumptions about how long or how big, but I think that 
simply the thought that we would have an enduring relationship 
could send the right signal.
    Senator Graham. Let's look at this photo again, this photo 
of this NCO basically calling for assistance. It's called 
``Trust'' and I think it's a great photo.
    One of the things that I worry about is that allies of the 
United States, partners of the United States, need to trust us. 
Do you agree with that?
    General Dempsey. Absolutely.
    Senator Graham. A lot of people in Afghanistan and Iraq 
have taken on radical Islamic extremists and they've paid a 
heavy price; is that true?
    General Dempsey. They have, Senator.
    Senator Graham. The Afghan and Iraqi people have paid a 
very heavy price fighting for their freedom. What I'm trying to 
impress upon people back home, I'm going to at noon get asked 
about, why would you invest money in a schoolhouse in 
Afghanistan when we need improvements in our schools in South 
Carolina? How would you answer that question?
    General Dempsey. I'd probably say that it's important to 
remember that we went to Afghanistan for our national interest, 
not theirs, and there is a residual requirement for that for 
how long as we deem our ability to do so. But this isn't about 
doing things just for them. It's in some way about doing things 
for us.
    Senator Graham. One way to defeat radical Islam is to 
provide an education to young women and young men to give them 
the tools to fight back and chart a new course for Afghanistan; 
do you agree with that?
    General Dempsey. I do, sir, within means and capabilities.
    Senator Graham. Within means and capability. A schoolhouse 
may do more good for the long-term security of the United 
States than maybe a brigade in Afghanistan?
    General Dempsey. It could very well be, when we reach the 
point of stability.
    Senator Graham. Now, killing bin Laden was a seminal moment 
in the war on terror. I want to congratulate the President and 
our Armed Forces and the Central Intelligence Agency and all 
those who stayed on the case. But I have a theory that killing 
terrorists only takes you so far when it comes to security. The 
ultimate security is partnerships; partnerships with people in 
the region who, if they had the capability to marry up with 
their will, they would fight back against these radical 
elements.
    I know it's more labor-intensive. I know it costs more 
money and in many ways it's deadlier. But I believe the payoff 
is greater.
    What is your view of our Nation's security being enhanced 
by having countries like Iraq and Afghanistan becoming stable, 
representative in nature, and generally aligned with us in 
rejecting radical Islam? Would that be a transformational event 
in the war on terror more than killing bin Laden?
    General Dempsey. I think it would have benefits beyond just 
the war on terrorism. I'm an advocate of building global 
relationships both to promote our values, to have partners who 
can help us when we encounter an uncertain future. I just think 
that we are better and we're a better army when we are out and 
about and interacting with our peers.
    Chairman Levin. Thank you, Senator Graham.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General, first congratulations. I thank you for your many 
years of service and what was apparently one of the briefest 
tenures as the Army Chief of Staff in history, I think.
    Let me ask you a series of questions. The President's 
budget proposes that we move to a smaller Army and Marine 
Corps. In response to the advance policy questions, you 
indicated agreement with the reductions in end strength that 
are included in the President's long-range budget. My concern 
is that we have heard repeatedly from military officials and 
mental health experts that a dwell time of 2 years at home for 
every 1 year deployed is the minimum time necessary to preserve 
the long-term mental and physical health of our forces.
    Certainly the Army and the Marine Corps have borne the 
brunt of the two wars in which we are now engaged. We're not 
counting Libya as well. What will be the impact in your view of 
reducing the end strength on our ability to meet those dwell 
time goals?
    General Dempsey. Senator, my responsibility as the Service 
Chief, with my fellow Service Chiefs and the current Chairman, 
is to take the budget targets we've been given and to determine 
how we provide capabilities, how much force structure that 
involves, how much modernization, how much training, 
maintenance, and readiness--this is your point--at a rate which 
we can sustain the All-Volunteer Force.
    For the Army, it is in fact 1 year deployed to 2 year home 
boots-on-the-ground (BOG)-dwell ratio. As we do this, some of 
it is art and some of it's science. The science of it is to 
take that BOG-dwell ratio, apply the force you can afford, and 
see if you can sustain it. We're running those models and that 
analysis right now.
    Senator Collins. I hope that you will keep a very close 
watch on this. I think it's absolutely critical. I understand 
that we're drawing down our troops in Afghanistan and Iraq, but 
I'm very concerned about the strain and pressure of repeated 
deployments. This strikes me as the wrong time to be reducing 
the size of our force, and so I think we need to watch that 
very carefully.
    Let me turn to an issue that Senator Webb raised with you, 
and that is sea power. The fact is that our Navy currently has 
the fewest numbers of ships since before World War I. Now, our 
ships are clearly more capable than they used to be, but, as an 
admiral once told me, quantity has a quality of its own, and 
you do need to have a sufficient number of ships.
    I'm concerned by what we see in China, with an enormous 
buildup by the Chinese of their fleet. I'm concerned by a 
February 2011 report by the Navy on surface ship readiness that 
found that 60 percent of the fleet is underway at any given 
time and 43 percent is forward deployed. Those figures 
represent historic high percentages.
    Our national security demands are growing. The ships are 
now going to be playing a very important role in ballistic 
missile defense. The fact is that we have a gap between the 
285-ship Navy that we currently have and the 313-ship Navy that 
the Chief of Naval Operations has described repeatedly as the 
floor, as the absolute minimum.
    So first question: Do you support the Navy's goal of 
increasing the number of ships that we have to 313?
    General Dempsey. Against the current strategy, Senator, I 
do. I would only caveat it by saying that as we do this 
analysis of resources we may have to actually change our 
strategy. We may reach a point where we say as Joint Chiefs we 
cannot achieve the strategy, here's the recommendations we make 
on changing our strategy, whether it's forward presence, 
whether it's allocating resources or not, to building partner 
capacity.
    In other words, your point hits exactly at the challenge I 
face, we face, which is we have a strategy and we have the 
means to execute it today. The means will change. We'll make 
some adaptations on how we do things. But at some point we may 
reach a point where we have to recommend to the President that 
we have to adapt or revise our strategy. We're not there.
    In answer to your question, right now I absolutely do agree 
with the Navy's shipbuilding program. I'm aware how it supports 
their air-sea battle concept. I'm aware what it does for us 
with anti-access, denial activities. It's the right strategy 
with the right resources for today, and if the strategy changes 
then I'll change my opinion about it.
    Senator Collins. My concern is that the budget is at risk 
of dragging the strategy, rather than the other way around. The 
way we should be doing this is determining our military 
requirements and have that dictate our resources, not the other 
way around.
    There certainly are savings to be achieved. I'm going to 
submit a couple of questions for the record on overseas bases, 
military construction overseas, on some procurements that our 
Homeland Security and Government Affairs Committee has looked 
at, that has to do with the enterprise resource programs, which 
are now sole source contracts and have enormous cost overruns.
    But let me use my remaining seconds to bring up a report 
that Senator Lieberman and I produced through our Homeland 
Security and Government Affairs Committee. It was on whether or 
not the Fort Hood shootings could have been prevented. I want 
to make sure to bring that report to your attention because, 
while we found that there was very poor communication between 
the Federal Bureau of Investigation and the Army, we also found 
that the Army had sufficient evidence on its own of Major 
Hasan's increasing radicalization.
    We found that there was a flawed personnel evaluation 
process that was very troubling, because not only was his 
radicalization evident, but the fact is he wasn't a good 
doctor. Yet many times he received outstanding ratings. One of 
his supervisors actually told the people at Fort Hood: You're 
getting our worst. Yet that physician had an outstanding 
rating.
    I would ask you to take a look at the rating process 
throughout DOD. I think that's absolutely critical.
    General Dempsey. We actually are in the process of taking 
those lessons learned and adapting policies. But I will 
continue the work. You have my commitment for that.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    General Dempsey, I just want to welcome you and I am 
looking forward to your confirmation. To Mrs. Dempsey, it's 
always a pleasure seeing you and I know this is definitely a 
team effort. Thank you for all your past service and sacrifice.
    Recently I joined several of my colleagues in sending a 
letter to the Secretary of Defense, Secretary Gates, regarding 
findings of the Military Leadership Diversity Commission. This 
commission, established by Congress, issued a decision paper 
earlier this year. This is about women in combat. It stated 
that tactical and operational occupations and command 
assignments are important factors that increase opportunities 
for promotion to higher officer ranks, but women and minorities 
are underrepresented in tactical and operational career fields 
and in candidate pools for command assignments; and the most 
important barrier keeping women from serving in tactical and 
operational career fields is the DOD and Service policies that 
prohibit women from serving in occupations involving direct 
offensive ground combat.
    The commission recommended DOD and the Services conduct a 
phased elimination of combat exclusion policies for women. My 
question, General Dempsey, is what do you think are the 
opportunities and risks for eliminating combat exclusion 
policies for women?
    General Dempsey. Thank you, Senator. There is a DOD task 
force in fact looking at what have we learned over 10 years 
about the nature of the current conflicts. Of course, I don't 
have to explain this to you. You have visited. But the nature 
of current conflict is there's no front line and back line. 
Some of the rules we have in place on collocation, for example, 
are simply outdated and need to be revised. We're prepared to 
do that as an Army.
    Now again, the DOD task force is looking both at 
collocation issues, but also at the issue of changing access to 
particular military occupational specialties. That work should 
take place here in the fall. I fully support it. I think we 
will learn that there are additional opportunities to be made 
available, and my commitment to you is to keep that on my 
agenda.
    Senator Hagan. Thank you. I think from a fairness 
standpoint, from the promotion, it certainly has to be on a 
level playing field, so that we can have very talented people 
in the upper levels.
    I also wanted to ask on the role of Pakistan. Pakistan is a 
key regional actor in Central Asia, although right now our 
relationship with Pakistan is complicated. Pakistan is 
obviously an important player in terms of regional stability in 
Central Asia.
    Can you describe how the Pressler Amendment has affected 
our relationship with Pakistan and how do you feel the United 
States needs to interact currently with Pakistan and in the 
future? How do you feel we should use the aid as a weapon of 
influence, based on the current relationship that we have now 
with Pakistan?
    General Dempsey. Thank you, Senator. I think Pakistan is an 
enormously important country in the CENTCOM area of operations. 
In fact, when I was the Acting CENTCOM Commander I considered 
it to be among probably the top one or two countries to be 
addressed.
    We've had, as you described it yourself, a very complex 
relationship with them. But I think it's one we need to stick 
with. To your point about the Pressler Amendment, that was a 
period in our history where we made a determination that we had 
such stark differences with Pakistan, notably on the issue of 
nuclearization, that we would cut off not only all aid, but all 
contact. As a result, we have now a generation among the 
Pakistan military, we have a generation of officers--generally 
they are field-grade majors and lieutenant colonels--who not 
only know nothing about us, but actually are somewhat 
antagonistic toward us because they've had no contact with us, 
and they simply remember a period of time when they were 
prohibited from having contact.
    I think that's a mistake. The point would be as we go 
forward to Pakistan, I think we should continue to find areas 
of common interest. There are plenty of those. I think we ought 
to acknowledge where we have differences and there ought to be 
consequences for greater or lesser cooperation. But I think we 
have to stick with the relationship.
    Senator Hagan. Thank you.
    I also wanted to ask a question about the military 
assistance for education. I know that GAO released a report 
back in March that focused on the military transition 
assistance program. My understanding is that oversight of the 
education programs receiving tuition assistance funds is really 
lacking and that the for-profit schools in particular have used 
in some cases, not all, improper tactics to enroll troops.
    I'm also told that just this week the Pentagon has imposed 
some new rules for online-only schools, in which our military 
are using the tuition assistance dollars. This is a direct 
result from the findings of the GAO report. I think that's 
positive. But I also feel strongly that these rules need to go 
further.
    Shouldn't these rules--and we're talking about online--also 
apply to brick and mortar institutions, so that all of the for-
profit institutions are held to the same standards, whether 
they're online or not? Additionally, with all of the fraud and 
abuse that we've seen, do you believe these rules should apply 
to all DOD and Veterans Affairs (VA) benefits and not just the 
tuition assistance programs?
    General Dempsey. It's an interesting point you raise. We 
are focused at this time on online education, but it certainly 
seems logical that we would be focused on making sure that 
these soldiers get best value for the money, whether they're in 
a brick and mortar schoolhouse or online.
    But this next generation is more likely to seek education 
opportunities online, so that's probably why we have chosen to 
start the process there. But I would support the idea that we 
should take a look at both.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    General, congratulations on your nomination, it's well 
deserved. I believe I am the one person standing between you 
and a very well-deserved break, so I will try to be succinct. 
I'm delighted you're willing to step forward, and you've had a 
very distinguished career and I look forward to working with 
you.
    Let me ask you a few questions, if I could, on the fiscal 
side, because we find ourselves in, unfortunately, very 
difficult economic and fiscal times. The current Chairman of 
the Joint Chiefs, Admiral Mullen, has talked about this. In 
January he said: ``The Pentagon's budget has basically doubled 
over the last decade and my own experience here is that in 
doubling we've lost our ability to prioritize, we've lost our 
ability to make hard decisions, to do tough analysis, to make 
trades.''
    He also issued this very famous quote that maybe has been 
brought up earlier today, which is: ``The single biggest threat 
to our national security is our debt.''
    Let me ask you a couple just quick comments, if you could, 
on that. One, do you agree with him on his famous quote about 
the debt being our biggest national security threat? Second, do 
you agree with him that we've lost our ability to prioritize, 
make hard decisions, and do tough analysis?
    General Dempsey. On the first, Senator, which is the idea 
that our economic condition is the greatest threat to national 
security, I don't agree exactly with that. I'm very----
    Senator Portman. Fiscal, he said, not economic.
    General Dempsey. Sorry?
    Senator Portman. Fiscal, so the debt.
    General Dempsey. The way I would prefer to describe it is 
the issue is national power. From what do we derive our 
national power? We derive our national power, our influence 
across the globe, our access to resources, global commons, that 
is all derived from the combination of three things. You can't 
pick or choose. You have to have strength in the military arm, 
the diplomatic arm, and the economic arm.
    So to the extent that he says our economic arm is weakened, 
therefore we are less capable across the globe, I buy that 
entirely. But I don't want to find myself in a position of 
voting that one or the other of those is more important than 
the other.
    On the issue, to the second part, about whether the 
Pentagon has lost the ability to prioritize, yes. I think I 
would probably say that you develop cultures over time. When 
times are flush with resources, the culture becomes that you 
just aren't forced to make those kind of decisions. Then when 
the cycle returns and resources are more constrained, it 
requires a change in culture. So yes, I agree with that.
    Senator Portman. Let me dig a little deeper on that in 
terms of one issue, which is the acquisition side of your 
future role and your current role as a Service Chief. I just 
left the Contracting Oversight Subcommittee, where I'm the 
ranking member on the Homeland Security and Governmental 
Affairs Committee, where we were talking about the tough fiscal 
conditions we face and how we need to have Government do more 
with less.
    In my time here on this committee, looking at various 
programs and witnessing some of the challenges we have in 
fielding capabilities for the Services in a timely way, it 
seems to me there are a few common themes. Surely there's a lot 
we can do in the acquisition process. The chairman and others 
have been involved with that over the years.
    But I hear just as often blame attributed to the way the 
Department develops requirements. I'm involved again on this 
contracting issue on a broader scale and looking at the Joint 
Strike Fighter, for instance, where now we're looking at 
projected cost overrun of $150 billion roughly--unbelievable.
    You and Admiral Winnefeld, who was up here last week, are 
going to be in the middle of all this. It seems to me attempts 
to look at the data and analysis and get away from some of the 
litany of documents and lockstep wickets is a good thing. I get 
the feeling a lot of this stuff early on in the programs is 
time-consuming. It's a lot of paperwork. It's a need to meet 
the Joint Capabilities Integration Development System review 
requirements. The intent is certainly the right one. We need to 
figure out what we need before we develop it.
    But something's not working here, and I just wonder if you 
could talk a little about this. Do you think the efforts being 
made to alter some of these processes are significant enough, 
and what would you do to ensure that real change occurs?
    General Dempsey. I completely agree that the status quo is 
unacceptable and that the system itself does require reform. 
The Under Secretary of Defense for Acquisition Ash Carter is 
working diligently, based on some of the guidance we've 
received from the Congress of the United States.
    I think there are some answers actually. I think the 
Service Chiefs need to have a greater role throughout the 
process. Right now we tend to have a role in requirements 
determination, but then the process is handed over to find a 
material solution. I think we have to partner more closely 
throughout the process, from start to finish, with industry.
    I think we need to take a shorter time horizon on 
acquisitions. The way requirements creep is when we have 
decade-long programs, which allow the aperture to remain open 
and for guys like me to keep stuffing things through. I think 
the answer is greater collaboration between requirements 
determination, material solution, greater collaboration with 
industry earlier, and shorter time horizons, as a start, but 
there's probably other opportunities as well.
    Senator Portman. I think we're going to be forced to make 
some of those tough decisions, as you said, to prioritize.
    By the way, you said Ash Carter, in reaction to guidance 
from Congress, is looking at some of these issues. I can't help 
myself, Mr. Chairman, say that some of the guidance I think 
it's fair to say from Congress on the second engine on the 
Joint Strike Fighter is not being adhered to, and that is we 
want competition.
    General Dempsey. I had more in mind the Weapons System 
Acquisition Reform Act.
    Senator Portman. I know, yes. I just think we have to go to 
competition wherever possible, get the costs down, and be sure 
that it's open and fair.
    Financial management. I want to get your thoughts on this. 
We recently had a debate on this on the floor because the 
Senate chose not to have so many positions be confirmed through 
the normal advise and consent process, which is a good thing. 
We're streamlining it. I offered an amendment, supported by 
many on this committee, saying there are some folks in the 
Federal Government who ought to continue to go through a 
process because we want to give them the stature that comes 
with that and empower them, and that included the financial 
management officials at the Department, including the 
Comptroller and each Service branch's financial management 
officer.
    We were successful in getting that done. The reason we did 
it, again, was to be sure that those folks are listened to by 
others who are confirmed, and those who are in the civilian 
leadership at the Pentagon are usually the people we talk to 
about this issue. But I would tell you today that I think the 
auditing function, being sure that you have financial officers 
in every Service who are getting the attention from the 
leadership, is extremely important and I would hope that the 
uniformed leadership would continue to play a role, in fact, I 
would say even a more active role. I think some view those back 
office functions as not important to our fighting forces. I 
would say, particularly in these times, it's incredibly 
important.
    The Marine Corps recently showed this, I think. By focusing 
more on financial management, they claimed a three dollar rate 
of return for every dollar spent on financial management, for 
instance.
    As one member, I will tell you I would hope that you 
personally will get engaged in this issue. With the increasing 
pressure on the Pentagon's budget, we ought to be sure that 
every dollar is spent as intended and that we're freeing up 
funds for critical needs by focusing on financial management.
    Can you give me your quick thoughts on that as a Service 
Chief now and how you intend to approach this as Chairman?
    General Dempsey. As a Service Chief, I absolutely concur 
that we tend to look at--we describe them as Major Defense 
Acquisition Programs (MDAP), where the money is placed inside 
of our budget, and we tend to look at the top 10 percent of our 
MDAPs because that's where the big dollars are. Actually, it's 
17 percent of the MDAPs have about 50 percent of the financial 
management challenges. But that's where we tend to focus our 
sight because it's the big dollars.
    But there's another 50 percent out there in the smaller 
MDAPs, that total $3, $4, $5 million, and I think we're in one 
of those environments where we have to be paying attention to 
all of it.
    Then the other aspect of it is audit ability. We're on path 
to become auditable by 2017, and I'm committed to that.
    Senator Portman. Thank you, General. I appreciate it and 
again appreciate your willingness to step forward.
    Chairman Levin. Thank you very much, Senator Portman.
    I would recommend to you, relative to the issue of 
contracting in Afghanistan, a report which was a major report 
of this committee in October 2010, entitled ``Inquiry Into the 
Role and Oversight of Private Security Contractors in 
Afghanistan.'' It was a long investigation, a detailed 
investigation, a very disturbing investigation, about the 
shortfalls of our private security contractors and the 
regulations and the policies needed to govern their operations.
    The article that we saw in the paper the other day about 
some of the funds ending up in the hands of our enemy was based 
on that investigation, made reference, as a matter of fact, to 
the investigation.
    But in terms of trying to put an end to some of the waste 
and worse that was going on and is going on relative to 
contractors in Afghanistan, I would recommend that very 
detailed report that we all worked so hard on.
    I was intrigued by your comment about how much personal 
pleasure you take from not being a lawyer, but I will not 
pursue that, being a lawyer, since I'm interested in your rapid 
confirmation.
    Unless there are any additional questions from Senator 
Portman, we will, with thanks to you and your bride, stand 
adjourned.
    [Whereupon, at 12:16 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN Martin E. Dempsey, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination to be the Chief of Staff, Army.
    Has your view of the importance, implementation, and practice of 
these reforms changed from the perspective of your nomination to become 
the Chairman of the Joint Chiefs of Staff (CJCS) or since you testified 
before the committee at your most recent confirmation hearing for the 
Chief of Staff, Army?
    Answer. Generally, no. Goldwater-Nichols made us the joint force we 
are today. However, if confirmed, I would examine the lessons of the 
past 10 years of war to determine if there are opportunities to make us 
an even more effective force.
                                 duties
    Question. Section 151 of title 10, U.S.C., provides that the CJCS 
is the principal military adviser to the President, the National 
Security Council, and the Secretary of Defense.
    What is your understanding of the duties and functions of the CJCS?
    Answer. The CJCS performs duties as prescribed in law and as 
assigned by the Secretary of Defense. These duties include being the 
principal military adviser to the President, the National Security 
Council, and the Secretary of Defense. The Chairman also heads and 
regularly convenes the Joint Chiefs of Staff, and regularly consults 
with combatant commanders. Where the advice of the Joint Chiefs of 
Staff differs, the Chairman conveys dissenting opinions in rendering 
his advice.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Panetta would prescribe for you?
    Answer. I anticipate the Secretary will assign duties consistent 
with the law and designed to support the requirements of the Secretary 
and the President.
    Question. If confirmed, what changes to section 151, if any, would 
you recommend?
    Answer. If confirmed, I do not anticipate recommending any changes 
to the law. I will, however, be attuned to issues and opportunities 
that might suggest consideration of potential changes to the law in the 
future.
    Question. Sections 152 through 155 of title 10, U.S.C., relate to 
the duties, organization, and functions of the Chairman and Vice CJCS, 
and the organization and operation of the Joint Staff.
    If confirmed, what changes to sections 152 through 155, if any, 
would you recommend?
    Answer. If confirmed, I do not anticipate recommending any changes 
to the law. I will, however, be attuned to potential issues and 
opportunities for improvement that might suggest consideration for 
eventual changes in the law.
    Question. What duties, responsibilities, and priorities would you 
plan to assign to the Vice CJCS?
    Answer. The Vice Chairman performs the duties assigned to him as a 
member of the Joint Chiefs of Staff and such other duties as assigned 
by the Chairman, with the approval of the Secretary of Defense. I have 
not yet determined any additional duty assignments beyond those 
prescribed in law. If confirmed, I intend to discuss potential duties 
with the Vice Chairman as part of our close working relationship.
    Question. What is your understanding and assessment of the most 
critical functions and performance of the Joint Staff? If confirmed, 
what changes, if any, would you propose to enhance the performance of 
the Joint Staff?
    Answer. The Joint Staff is independently organized and operated to 
support the Chairman and Vice CJCS in discharging their duties as 
assigned by law. Among these duties, serving as the principal military 
adviser to the Secretary of Defense and President of the United States 
is paramount. This requires close collaboration and coordination with 
the staffs of the Secretary of Defense, Service Chiefs, and combatant 
commanders as well as other interagency offices and foreign military 
staffs. One ongoing change to the Joint Staff is the integration of 
certain functions and responsibilities that currently reside in Joint 
Forces Command. In addition to managing this transition, I will be 
alert to other opportunities to improve Joint Staff performance.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I've been the beneficiary of assignments both with the 
Joint Force and within the Institutional Army that provide an important 
perspective on national security issues. Specifically, I've served as 
General Hugh Shelton's special assistant when he was the CJCS, as a 
Division Commander in combat, in a security assistance/building partner 
capacity role in both Saudi Arabia and Iraq, as Deputy and then Acting 
Commander of U.S. Central Command (CENTCOM), as Commander of U.S. Army 
Training and Doctrine Command, and as Chief of Staff of the Army.
    Question. Do you believe there are actions you need to take to 
enhance your ability to perform the duties of the CJCS?
    Answer. Yes. It seems clear we are entering a future environment 
that is more complex, less predictable, and faster paced. It is also 
clear we are entering a new fiscal environment. To be effective in that 
environment, I will need to establish strong relationships with the 
Joint Chiefs, the Secretary of Defense, the President, and Congress. I 
will also have to ensure that as a military we learn faster and adapt 
more quickly than our potential adversaries. Finally, if confirmed, I 
will be the senior military officer in the Nation. With that comes 
responsibility as the steward of our profession. Therefore, I will take 
personal interest in the development of our force as professionals in 
the service of our Nation.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Chairman and other officials. 
Please describe your understanding of the relationship of the CJCS to 
the following officials:
    The Secretary of Defense.
    Answer. The CJCS must have a close working relationship with the 
Secretary of Defense. Under title 10, the Chairman is assigned several 
duties that guide the relationship to include serving as the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. The Chairman also performs other duties 
assigned by the Secretary of Defense.
    Question. The National Security Advisor.
    Answer. The National Security Advisor is a special assistant and 
direct advisor to the President. As the role of the Chairman is to 
serve as the principal military advisor to the President, National 
Security Council, Homeland Security Council, and Secretary of Defense, 
if confirmed, I will continue to work closely with the National 
Security Advisor to ensure our efforts are synchronized across the 
interagency and for the purpose of implementing presidential decisions.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Chairman with the Deputy Secretary is 
similar to that with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current Department of Defense (DOD) 
directives establish the Under Secretaries of Defense as the principal 
staff assistants and advisers to the Secretary regarding matters 
related to their functional areas. Within their areas, Under 
Secretaries exercise policy and oversight functions. They may issue 
instructions and directive type memoranda that implement policy 
approved by the Secretary. These instructions and directives are 
applicable to all DOD components. In carrying out their 
responsibilities, and when directed by the President and Secretary of 
Defense, communications from the Under Secretaries to commanders of the 
unified and specified commands are transmitted through the CJCS.
    Question. The General Counsel of DOD.
    Answer. Under title 10, U.S.C., section 140, the DOD General 
Counsel serves as the chief legal officer of DOD. In general, the DOD 
General Counsel is responsible for overseeing legal services, 
establishing policy, and overseeing the DOD Standards of Conduct 
Program, establishing policy and positions on specific legal issues and 
advising on significant international law issues raised in major 
military operations, the DOD Law of War Program, and legality of 
weapons reviews. The office of the DOD General Counsel works closely 
with the Office of Legal Counsel to the CJCS, and communications with 
the combatant commanders by the DOD General Counsel are normally 
transmitted through the CJCS.
    Question. The DOD Inspector General.
    Answer. The DOD Inspector General performs the duties, has the 
responsibilities, and exercises the powers specified in the Inspector 
General Act of 1978. If confirmed, I will cooperate with and provide 
support to the DOD Inspector General as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice CJCS performs the duties prescribed for him as a 
member of the Joint Chiefs of Staff and such other duties as may be 
prescribed by the Chairman, with the approval of the Secretary of 
Defense. When there is a vacancy in the Office of the Chairman or in 
the absence or disability of the Chairman, the Vice Chairman acts as 
Chairman and performs the duties of the Chairman until a successor is 
appointed or the absence or disability ceases.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165 provides that, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces that are assigned to unified and specified commands. The 
Chairman advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the military 
departments conform to priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Question. The Chiefs of Staff of the Services.
    Answer. Because of the Goldwater-Nichols Act, the Service Chiefs 
are no longer involved in the operational chain of command. However, 
this does not diminish their importance with respect to title 10 
responsibilities. Among other things, they serve two significant roles. 
First, they are responsible for the organization, training, and 
equipping of their respective Services. Without the full support and 
cooperation of the Service Chiefs, no combatant commander can assure 
the preparedness of his assigned forces for missions directed by the 
Secretary of Defense and the President. Second, as members of the Joint 
Chiefs of Staff, the Chiefs are advisers to the Chairman and the 
Secretary of Defense as the senior uniformed leaders of their 
respective Services. In this function, they play a critically important 
role in shaping military advice and transforming our joint 
capabilities. If confirmed, I will continue to work closely with the 
Service Chiefs to fulfill warfighting and operational requirements.
    Question. The combatant commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. By law, and to the extent 
directed by the Secretary of Defense, the Chairman serves as spokesman 
for the combatant commanders and is charged with overseeing their 
activities. He provides a vital link between the combatant commanders 
and other elements of DOD, and as directed by the President, may serve 
as the means of communication between the combatant commanders and the 
President or Secretary of Defense. If confirmed, I will work closely 
with the combatant commanders to enable their warfighting capability 
and to provide support.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
DOD and is the senior uniformed National Guard officer responsible for 
formulating, developing and coordinating all policies, programs, and 
plans affecting more than half a million Army and Air National Guard 
personnel. Appointed by the President, he serves as principal adviser 
to the Secretary of Defense through the CJCS on National Guard matters. 
He is also the principal adviser to the Secretary and Chief of Staff of 
the Army and the Secretary and Chief of Staff of the Air Force on all 
National Guard issues. As National Guard Bureau Chief, he serves as the 
Department's official channel of communication with the Governors and 
Adjutants General. If confirmed, the Chief of the National Guard Bureau 
will continue to have full access to the upper echelons of the Joint 
Staff and me.
    Question. The Special Representative for Afghanistan and Pakistan.
    Answer. There is no command relationship between the Special 
Representative for Afghanistan and Pakistan and the U.S. military. 
However, because of the critical importance of coordinating State 
Department and DOD activities in Afghanistan and Pakistan to advance 
U.S. policy objectives in the region, if confirmed, I will work closely 
with him to ensure our efforts are synchronized.
    Question. The Commander, U.S. Forces-Afghanistan.
    Answer. Although the CJCS is the principal military advisor to the 
President, the Secretary of Defense, and the National Security Council, 
he is not in the chain of command of the Commander, U.S. Forces-
Afghanistan (USFOR-A). The Commander, USFOR-A reports to the Commander, 
CENTCOM, who, in turn, reports directly to the Secretary of Defense. 
This reporting relationship is prescribed in title 10 U.S.C. section 
164(d)(1). The Commander, USFOR-A does not have a formal command 
relationship with the CJCS, but he coordinates with him through the 
Commander, CENTCOM on a regular basis. The Commander, USFOR-A sends his 
advice and opinions on military operations to the Commander, CENTCOM, 
who, in turn, presents them to the Chairman.
    Question. The Commander, U.S. Forces-Iraq.
    Answer. Although the CJCS is the principal military advisor to the 
President, the Secretary of Defense, and the National Security Council, 
he is not in the chain of command of the Commander, U.S. Forces-Iraq 
(USF-I). The Commander, USF-I reports to the Commander, CENTCOM, who, 
in turn, reports directly to the Secretary of Defense. This reporting 
relationship is prescribed in title 10 U.S.C. section 164(d)(1). The 
Commander, USF-I does not have a formal command relationship with the 
CJCS, but he coordinates with him through the Commander, CENTCOM on a 
regular basis. The Commander, USF-I sends his advice and opinions on 
military operations to the Commander, CENTCOM, who, in turn, presents 
them to the Chairman.
                    major challenges and priorities
    Question. What is your vision for the Armed Forces of today and the 
future?
    Answer. We have the finest military in the world today, and we must 
maintain it as the finest military in the future. We must provide the 
Nation with the military it needs, and that means we must provide our 
leaders with options. The force must be responsive, decisive, 
versatile, interdependent, and affordable. We are likely to be somewhat 
smaller, but in doing so we must remain capable of providing what the 
Nation needs. Delivering a force such as I've described will require us 
to reform many of our current processes including but not limited to 
the acquisition and procurement processes as well as our training and 
leader development strategies. It will likely be necessary to establish 
a different relationship among the Active and Reserve components of our 
Armed Forces, and it is likely that we will have to establish a 
different relationship among our closest allies and partners.
    Question. In your view, what are the major challenges that will 
confront the next CJCS?
    Answer. The next Chairman must achieve the Nation's objectives in 
the current conflicts, shape the international security environment, 
prepare the force for an uncertain future, respond to a changing fiscal 
reality, and do all of that while preserving the All-Volunteer Force.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Addressing these challenges starts with a clear-eyed look 
at the mid-future and the determination of what the Nation needs in its 
military. Stated another way, we must decide what military capabilities 
we need in 2020 and determine how we will deliver them.
    Question. If confirmed, what broad priorities will you establish?
    Answer. We have to provide whatever it takes to achieve our 
national objectives in Iraq and Afghanistan. We have to maintain 
pressure on those state and non-state actors who threaten us. We have 
to maintain and build alliances and partnerships. We have to stay 
connected to the American people, and we have to keep faith with 
soldiers, families, and veterans. As I said earlier, the Joint Force 
for 2020 must be responsive, decisive, versatile, interdependent, and 
affordable.
                            chain of command
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Section 
163(a) of title 10 further provides that the President may direct 
communications to combatant commanders be transmitted through the CJCS 
and may assign duties to the Chairman to assist the President and the 
Secretary of Defense in performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. The current chain of command provides a clear and effective 
means for employing our Nation's military. The combatant commanders, 
under the orders of the Secretary of Defense, fight our wars and 
conduct military operations around the world. As the principal military 
advisor to the President and the Secretary of Defense, the Chairman 
provides a vital link between the President, the Secretary of Defense, 
the combatant commander, and the Service Chiefs. If confirmed, I may 
inform decisions and transmit directions, but there will be no question 
that the combatant commanders receive their orders from the Secretary 
of Defense.
    Question. The recent successful mission against Osama bin Laden was 
executed using military forces of DOD, under the control of the Central 
Intelligence Agency, and presumably under the authorities in title 10, 
U.S.C.
    Are there circumstances in which you believe it is appropriate for 
U.S. military forces to be under the operational command or control of 
an authority outside the chain of command established under title 10, 
U.S.C.?
    Answer. I believe the chain of command established by title 10 is 
the appropriate mechanism for the command and control of military 
operations. Without commenting on the bin Laden operation in 
particular, it is my understanding that in general there are 
circumstances in which military capabilities should be made available 
temporarily to support an activity of a non-DOD U.S. Government 
department or agency. In these instances, it is appropriate for the 
head of such department or agency to direct the operations of the 
element providing that military support. The President remains at the 
top of the chain of command and at all times has overall command and 
responsibility for the operation. The military units supporting such an 
operation are still governed by the laws of armed conflict and, as an 
administrative matter, the military personnel remain accountable to the 
military chain of command, including for matters of discipline under 
the Uniform Code of Military Justice.
    Question. In your view, what are the advantages, disadvantages, and 
risks, if any, in utilizing U.S. military personnel for missions under 
the authorities contained in title 50, U.S.C.
    Answer. Non-DOD Federal departments and agencies may, in carrying 
out their duties, occasionally require support that resides in the U.S. 
Armed Forces and does not exist in the department or agency conducting 
the operation. It sometimes is therefore preferable to make an 
appropriate military capability temporarily available to support the 
operations of other departments and agencies. The advantage of this 
authority is that it allows for specialization and division of labor 
across departments and agencies and can prevent the development of 
under-utilized, military-like capabilities in other agencies. A 
potential disadvantage or risk is of sharing capabilities is that the 
department or agency receiving the support may not be sufficiently 
organized, trained, or equipped to most effectively direct the 
employment of the military capability. In all cases, however, we work 
to minimize any disadvantages and risk.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, U.S.C.? Do you believe any modifications to these authorities 
are necessary?
    Answer. As noted above, consistent with title 50 of the U.S.C., the 
President may authorize departments, agencies, or entities of the U.S. 
Government to participate in or support intelligence activities. As 
stated above, military personnel in support of any such activities 
remain subject to the laws of armed conflict and the Uniform Code of 
Military Justice while operating under the direction of the head of a 
non-DOD Federal department or agency. I believe that existing 
authorities are sufficient to facilitate DOD's providing appropriate 
support under title 50 while ensuring necessary oversight.
    Question. Please explain your views on the preferred chain of 
command structure for counter terrorism operations conducted outside of 
Iraq and Afghanistan.
    Answer. I believe the chain of command established under title 10 
is appropriate for command of U.S. military operations regardless of 
the location. The determination of whether chain of command structure 
for a specific counterterrorism operation is appropriate will depend on 
the nature of the contemplated operation and the circumstances specific 
to the time and place of that operation.
       advice of the service chiefs and the combatant commanders
    Question. Section 163 of title 10, U.S.C., provides that the CJCS 
serves as the spokesman for the combatant commanders, especially on the 
operational requirements of their commands. Section 151 of title 10 
provides for the other members of the Joint Chiefs of Staff to submit 
their advice or opinion, in disagreement with or in addition to the 
advice or opinion of the Chairman, and requires the Chairman to provide 
that advice at the same time that he presents his own advice to the 
President, National Security Council, or Secretary of Defense.
    What changes to section 151 or 163, if any, do you think may be 
necessary to ensure that the views of the individual Service Chiefs and 
of the combatant commanders are presented and considered?
    Answer. I believe the legislation is well-crafted and is sufficient 
to ensure that differing viewpoints are offered to our national 
leadership, while preserving the Chairman's role as the principal 
military advisor. It has been my experience that this relationship 
works well, and I see no need to change the law. If confirmed, I will 
maintain the very effective and collaborative environment that 
currently exists.
    Question. Do you believe the Chief of the National Guard Bureau 
should be a member of the Joint Chiefs of Staff? Please explain your 
position.
    Answer. While I am open-minded to the possibility, I have 
significant concerns about this proposal. The Services have never been 
closer to their Reserve components, and separating them by title risks 
creating unnecessary friction in the ranks. Furthermore, the authority 
of the Service Chiefs is built on the foundation of their budget 
responsibility. Stated another way, they are accountable for the 
military advice they provide by virtue of their control of their 
Service budgets. The Chief of National Guard, if appointed as a member 
of the JCS, will have authority without accountability. This would 
concern me.
                    security strategies and guidance
    Question. In your view, is the Nation's defense strategy 
appropriate for the threats we face today and could face in the coming 
decades?
    Answer. I believe the strategy is appropriate for the threats we 
face today, although I am alert to concerns that it might be under-
resourced over the mid- to long-term. It is my understanding that the 
ongoing comprehensive review is being careful to ensure it is strategy-
based and risk-informed. If confirmed, I will ensure that we clearly 
identify the specific risks commensurate with revised resource levels.
    Question. What changes, if any, should be considered?
    Answer. In my judgment, a good strategy is dynamic and adaptive to 
changes in the strategic environment the threat, and the needs of our 
Nation. I believe the existing strategy addresses known threats while 
posturing for less well-defined or understood threats and contingencies 
that might arise.
    Question. In your view, is our broad defense strategy and current 
establishment optimally structured, with the roles and missions of the 
military departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. Overall, I would say yes, but I would also be careful about 
the word ``optimal'', because it implies some static ideal. I would say 
that as our strategy evolves, so too must our organizations, 
approaches, and forces. I think we do that well. We continually examine 
whether our forces are appropriate to the missions at hand. A recent 
example is the stand up of U.S. Cyber Command in response to challenges 
in cyberspace.
    Question. If confirmed, what changes, if any, would you propose to 
the structure, roles, and missions of the defense establishment?
    Answer. The Defense Department conducts continuous security 
analysis that results in the periodic publication of strategic 
evaluations and plans intended to guide all elements of the defense 
establishment in its strategic and operational planning, programming 
and budgeting, and for the development and employment of military 
forces. These evaluations and plans include: the National Security 
Strategy, the National Strategy for Counterterrorism, the National 
Military Strategy, the Unified Command Plan, the Quadrennial Defense 
Review (QDR), the Quadrennial Roles and Missions Review, the Nuclear 
Posture Review (NPR), the Ballistic Missile Defense Review, and the 
Global Defense Posture Review.
    If confirmed, I will examine our current status and provide my best 
military judgment on what needs to be adapted. Title 10 requires the 
Secretary to conduct a Quadrennial Roles and Missions Review and submit 
it to Congress prior to the budget submission in 2013. One of my 
statutory responsibilities will be to provide an assessment of roles, 
missions, and functions to inform that review. I would do so in 
collaboration with the Joint Chiefs and Combatant Commanders.
    Question. What is your assessment of the most current versions of 
these strategic evaluation, guidance, and report documents?
    Answer. My assessment is that these documents derive from a common 
understanding of a complex strategic environment, and that their 
strategy objectives and tasks are integrated, consistent, and 
appropriate to advancing U.S. national security. The simultaneity of 
the multiple reviews enhanced the ability for these reviews to 
complement each other. For example, the QDR was informed by early NPR 
findings.
    Question. What, in your view, is or should be the relationship, if 
any, of each document to the Department's annual and long range budget 
request and plans?
    Answer. Budget plans and requests must be informed by national 
strategies as strategies must be resource informed. The security 
strategies and guidance inform the Program, Planning, Budget, and 
Execution (PPBE) process and allow the Department to align resources 
with the execution of strategy, guidance, and policies. The PPBE 
process allows us to revisit decisions that need review due to changing 
world situations, and it enables the Department to adjust resources as 
needed.
    Question. If confirmed, what changes, if any, would you propose to 
the strategic analysis and approval processes or to the reports and 
guidance contained in each?
    Answer. If confirmed, I do not anticipate recommending any 
immediate changes, but I retain the right to change my mind. The 
Department conducts rigorous strategic analysis, which informs 
strategic discussions and provides options. The approval processes 
ensures that multiple perspectives are captured prior to final 
direction being provided.
                             strategic risk
    Question. Do you believe that the extended pace and scope of 
operations in Iraq and Afghanistan create increased levels of strategic 
risk for the United States based on the lack of available trained and 
ready forces for other contingencies?
    Answer. No. Our service men and women have gained enormous combat 
experience in combat in Iraq and Afghanistan. I think our military and 
civilian leaders have managed the risks associated with our extended 
campaigns in Iraq and Afghanistan well. That said, there are skills 
that have atrophied, and we must address them as time to train permits.
    Question. If so, how would you characterize the increase in 
strategic risk in terms of the military's ability to mobilize, deploy, 
and employ a force for a new contingency? In your view, is this level 
of risk acceptable?
    Answer. I believe the Services have done a tremendous job 
maintaining the readiness of our military to respond to contingencies--
evidenced, in part, by our rapid ability to plan and execute military 
operations in Libya, respond to the earthquake and tsunami in Japan, 
and maintain a credible deterrence against potential aggressors across 
the globe. The temporary increases in end strength authorized by 
Congress played an important role in this, and recently, the drawdown 
in Iraq has made more forces available. I believe any risk we have 
assumed to be acceptable, because while training in some areas has 
suffered, our forces are actually the most experienced they have ever 
been. The focus now needs to be on resetting and reconstituting 
degrades capabilities.
    Question. What is the impact of the decision to decrease U.S. 
forces committed to Afghanistan on our ability to meet our security 
obligations in other parts of the world?
    Answer. We are meeting our current global security obligations. 
Given the size of the drawdown scheduled for this year and next year, 
there will be little initial impact on our ability to meet these 
obligations. As we reset and reconstitute our military, we will be 
better able to meet any additional and emergent security obligations.
    Question. How and over what periods of time, if at all, will 
reductions to Army and Marine Corps end strength increase or aggravate 
this risk?
    Answer. An unpredictable and/or hasty timeline to reduce ground 
forces would damage both the institution and increase military and 
strategic risks to the Nation. The current planned reductions and 
timelines, coupled with efficiency efforts are executable with what I 
consider acceptable risk.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. If confirmed, I will address risks by advising on the 
employment of the Joint Force to maximum effect, working closely with 
allies and partners, and integrating coordinating to integrate military 
actions with other elements of national power. Furthermore, I would use 
my first annual risk assessment to clearly identify the risks that 
require mitigation.
                             transformation
    Question. Military ``transformation'' has been a broad objective of 
the Armed Forces since the end of the Cold War.
    What is your understanding and assessment of the progress made by 
the Department, including the Joint Chiefs of Staff and the Joint 
Staff, toward transforming the Armed Forces?
    Answer. Transformation can have many different meanings, but in 
general it implies fundamental organizational change. Such change has 
certainly occurred over the last decade even as we have preserved our 
core values and retained the trust of the American people. The Joint 
Force is more battle-tested and integrated across Services and 
components than at any time in our history. It has changed its 
structure, doctrine, education, exercises, training, material, leader 
focus, and posture to account for changing threats in diverse theaters. 
If confirmed, I will work to ensure we continue to change in a way that 
strengthens joint warfighting capabilities over time.
    Question. If confirmed, what goals, if any, would you establish 
regarding military transformation in the future?
    Answer. As we adjust our posture and missions in Iraq and 
Afghanistan, I would like to see a balanced force that is capable 
across the full spectrum of missions vice optimized for any particular 
mission set. If confirmed, I would also work to further advance 
affordable and versatile joint capabilities.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. The areas of concept development and experimentation, 
strategy development, requirements development, and the doctrine 
development processes. The assumption of many Joint Forces Command 
responsibilities will ensure that Joint Staff plays an even larger role 
in the future.
                           economic security
    Question. Current Chairman of the Joint Chiefs, Admiral Michael 
Mullen, asserted in January that the Pentagon's ``budget has basically 
doubled in the last decade. My own experience here is in that doubling, 
we've lost our ability to prioritize, to make hard decisions, to do 
tough analysis, to make trades.'' Most recently on July 10th, Admiral 
Mullen stated that ``the single-biggest threat to our national security 
is our debt''.
    Do you agree with Admiral Mullen's assessments regarding the 
relationship between U.S. security and debt?
    Answer. I wouldn't describe our economic condition as the single 
biggest threat to national security. There are a lot of clear and 
present threats to our security in the current operational environment. 
That said, there is unquestionably a relationship between U.S. security 
and the debt. However, national security didn't cause the debt crisis 
nor will it solve it. I agree that the national debt is a grave 
concern. Our national power is the aggregate of our diplomatic, 
military, and economic influence. We have to address our economic 
stature, but that doesn't mean we can neglect the other instruments of 
national power.
    Question. If so, in your view, how does this relationship impact 
the Defense Department and, if confirmed, what changes, if any, would 
you propose to ensure that, in building a military capable of meeting 
our strategic objectives, the defense budget does not at the same time 
undermine our national security?
    Answer. DOD is currently conducting a comprehensive review directed 
by the President to determine the strategic implications of a $400 
billion reduction in spending. If confirmed, I will focus on delivering 
the military force the Nation needs while endeavoring to be a good 
steward of our national resources.
    Question. Do you agree with Admiral Mullen that the Defense 
Department has lost the ability to prioritize and make the tradeoffs 
that come with tough decisions?
    Answer. Over the last decade in an era of relatively unconstrained 
resources, DOD has not had to make difficult decisions about budgetary 
tradeoffs. While we may have lost some of the ``muscle memory'' for 
such decision-making, I am confident we can adapt to a changing 
security and fiscal environment. If confirmed, I will build on current 
efforts to strengthen the analytical processes needed for making hard 
choices. More importantly, I will reinforce a culture of cost 
discipline that will ensure we remain good stewards of our national 
resources.
    Question. If confirmed, what changes, if any, would you propose to 
regain the Department's ability to objectively analyze its 
requirements, prioritize to meet national security needs, and make the 
tough choices in allocating resources to meet those needs?
    Answer. The next Chairman--whoever he or she is--will clearly have 
to balance ends, ways, and means more proactively than his immediate 
predecessors to deliver a military that will meet the needs of the 
Nation. This is not about changing process; it's about managing change.
                  national security budget reductions
    Question. The President has called for $400 billion in reductions 
to security spending over a 10-year period starting in 2013, and has 
asked the Secretary of Defense to lead a review to provide 
recommendations on where to make those cuts.
    What is your understanding of the current status of that review?
    Answer. The review is ongoing. I participate in the review now as a 
Service Chief, and if confirmed, I welcome the opportunity to continue 
to collaborate with the Secretary of Defense, Service Chiefs, and 
combatant commanders to achieve a more affordable Joint Force.
    Question. What is your view as to how such cuts should be 
distributed among the various components of security spending?
    Answer. While some distribution of cuts among various components of 
security spending is both inevitable and appropriate, we should avoid 
simply making formulaic, across-the-board cuts. Reductions in one area 
have implications in others. Therefore, we must carefully calibrate 
cuts to ensure the result is a strengthened Joint Force. The precise 
distribution of cuts across components of security spending is still 
being determined, but I understand it to be a fundamental consideration 
for the ongoing review.
    Question. What role do you expect to play, if confirmed, in guiding 
the review and in determining what cuts, if any, should be made to the 
defense budget?
    Answer. If confirmed, I expect to play a prominent role in this 
review, and I will work closely with both the Secretary of Defense and 
the Joint Chiefs of Staff to provide my best judgments on how what cuts 
should be made.
    Question. Do you believe that a national security spending 
reduction of this magnitude can be accomplished without significant 
adverse impact on our national security?
    Answer. The review is ongoing, and it will help inform the risks 
associated with prospective cuts to our defense budget. If confirmed, I 
will work with the Secretary of Defense and Joint Chiefs of Staff to 
ensure an affordable Joint Force that meets our national security 
needs.
    Question. If confirmed, how will you prioritize the objectives of: 
making needed investments in the future force, addressing pressing 
requirements for completing the missions in Iraq and Afghanistan, 
meeting ongoing operational commitments across the globe, resetting of 
the force, and achieving the level of savings proposed by the 
President?
    Answer. If confirmed, I will continue to prioritize funding to 
support our troops fighting in our conflicts abroad while helping to 
assure we are conducting operations in fiscally responsible manner. 
Given that the review is ongoing, I do not want to prejudge how to 
prioritize among the other categories listed; however, it is my 
judgment that we can achieve the level of proposed savings in a way 
that strengthens the Joint Force over time.
                         use of military force
    Question. The question as to whether and when U.S. forces should 
participate in the use of force is one of the most important and 
difficult decisions that the national command authorities have to make. 
Prior Secretaries of Defense and Chairmen of the Joint Chiefs of Staff 
have proposed criteria to guide decision-making for such situations.
    What factors would you consider in making recommendations to the 
President on the use of force?
    Answer. If confirmed, in making recommendations to the President on 
the use of force, I would consider the threat to our national 
interests, the role of non-military means to achieve our objectives, 
the ability of military means to contribute to our political 
objectives, and the likely outcome from the use of military force. If 
it is determined that the use of military force is appropriate, I would 
propose its use in a precise and principled manner. I would pursue the 
cooperation and assistance of our allies and partners and adhere to 
international standards and treaty agreements while still reserving the 
right to act alone if necessary.
    Question. What circumstances should pertain for you to recommend 
that the President employ preemptive force?
    Answer. If adversaries challenge our vital interests with the 
threat of force, and both deterrence and diplomacy fail, the United 
States must be prepared to consider preemptive force. If confirmed, 
some of the key factors I would consider in recommending the employment 
of preemptive force include the vital national interests at stake, the 
degree to which other options have been exhausted, the probability of 
an attack by our adversary, the potential results of the enemy attack, 
and the consequences of our preemptive action.
    Question. What degree of certainty do you believe is necessary 
before the United States would use preemptive force?
    Answer. While I believe the degree of certainty necessary before 
the United States should employ preemptive force should be high, it is 
not reasonable to articulate a pre-existing standard. Rather, it should 
take into account the imminence and severity of the threat and the 
likely outcomes of the use of preemptive force.
                               dwell time
    Question. While dwell time is improving as our forces draw down in 
Iraq, many active duty military members are still not experiencing the 
dwell-time goal of 2 years at home for every year deployed.
    In your view, under what conditions and when will dwell-time 
objectives be met for the Active and Reserve components?
    Answer. All Services are making progress toward achieving objective 
dwell rates based on guidance issued in the Global Employment of Forces 
document. While the Army is now averaging about a 1:1 dwell time, we 
expect to reach 1:2 by the end of this year. I understand the other 
Services are at about 1:2 already and that dwell times will continue to 
improve for both the Active and Reserve components through fiscal years 
2012-2014. Our goal remains to optimize the quality of life for every 
soldier, sailor, airman, and marine while still meeting mission 
requirements. If confirmed, I will closely monitor this important 
issue.
                        active duty end strength
    Question. Under current planning, the Army will reduce its end 
strength by 22,000 through fiscal year 2013, including 7,400 in fiscal 
year 2012. This end strength was part of the temporary increase 
authorized in 2009 and was intended to enable the Army to cease relying 
on the so-called ``stop-loss'' authority and to make up for a growing 
population of nondeployable soldiers. Beginning in fiscal year 2015, 
depending on conditions on the ground, the Army and Marine Corps plan 
to reduce their permanent end strength and force structure by 27,000 
soldiers and at least 15,000 marines, respectively.
    Do you agree with this Active Duty end strength reduction plan?
    Answer. Yes. End strength reductions are conditions based and 
require periodic reevaluation. If confirmed, I will work with Secretary 
Panetta and support the Army leadership's plan to accomplish current 
and projected missions, balance the well-being of soldiers and 
families, and keep the Army prepared to meet unforeseen operational 
demands.
    Question. What is your view of how these planned end-strength 
reductions will affect dwell-time ratios?
    Answer. The planned end strength reductions are intended to take 
advantage of reduced demand to support ongoing operations in 
Afghanistan and Iraq. It is my understanding that if the draw-downs 
continue as planned, the end strength reductions should allow our 
forces to achieve and sustain acceptable dwell ratios.
    Question. What effect would inability to meet dwell-time objectives 
have on your decision to implement the planned end strength reductions?
    Answer. Should an unforeseen event change our assumptions about end 
strength assumptions, I would review all options and provide my best 
military advice in adapting existing plans.
    Question. In your view, can the Army accelerate to 2012 more of its 
planned reduction in its temporary over-strength without an adverse 
impact on national security?
    Answer. Army force structure is directly linked to the pace of 
ongoing operations. We will manage end strength reductions to ensure 
that we do not incur excessive risk. If confirmed, I will work closely 
with the Army and the Marine Corps to determine our appropriate end 
strength and the associated timing.
    Question. What would be the effect on dwell time of accelerating 
the Army's force reduction plan?
    Answer. Currently, our plans for end strength reductions are well 
integrated with our dwell-time projections. Any changes to current 
timelines for end strength reductions would need to be assessed against 
our current and projected operational requirements and our dwell-time 
goals.
    Question. What are the assumptions regarding ``conditions on the 
ground'' that will allow for the planned reductions beginning in 2015 
to occur on time?
    Answer. We're tracking the: (1) transition of tasks to our Afghan 
counterparts in the security forces and various government 
institutions; and (2) the responsible drawdown of our surge forces 
within the parameters set by the President. The planned reductions in 
end strength are based on achieving these drawdown objectives in 
Afghanistan. As 2014 approaches, we will have to assess our enduring 
strategic interests in the region to determine the appropriate size and 
nature of force presence in Afghanistan after 2014.
    Question. The Navy and Air Force appear to be on pace to exceed 
authorized strengths for fiscal year 2011, and to address this 
overstrength, the Department has requested congressional authorization 
of force management tools to avoid exceeding end strength limits and 
save money.
    In your view, what tools do the Department and Services need to get 
down to authorized strengths in the future, and which of these require 
congressional authorization?
    Answer. I am not yet familiar with the full extent to which the 
authorities used during previous force reductions have expired or will 
soon expire. If confirmed, I will work closely with the senior military 
and civilian leadership of the Department to identify any additional 
tools and associated legislation that may be needed to help us meet our 
authorized end strengths.
         institutionalization of counterinsurgency capabilities
    Question. The 2010 report of the QDR provided that military forces 
shall be sized to prevail in ongoing conflicts in Afghanistan, Iraq, 
and the war against al Qaeda as well as for conducting foundational 
activities that prevent and deter attacks or the emergence of other 
threats. The QDR report particularly emphasizes the requirement for 
improved capabilities in key mission areas such as counterinsurgency, 
stability, and counterterrorism operations, as well as building the 
security capacity of partner states.
    What is your understanding and assessment of the current ability of 
each Service to provide capabilities to support these mission 
requirements and, if confirmed, what changes, if any, would you pursue 
to improve these capabilities?
    Answer. My belief is that we have adapted extraordinarily well. 
Over the past decade, our forces have made tremendous advances in 
developing their counterinsurgency, stability, and counterterrorism 
capabilities. Leaders have put a tremendous amount of effort into 
actually learning and applying the lessons learned from operations in 
Iraq and Afghanistan. Just as I did during my tenure with Training and 
Doctrine Command, it is my understanding that all the Services are 
continuously incorporating those lessons into doctrine and training 
regimes. In turn, these lessons are being adapted by our forces in 
combat, as I witnessed on more than one occasion in Iraq. If confirmed, 
I will continue to support those recurring and continuous improvement 
efforts that bring the right mix of capabilities and force structure to 
address future requirements. I will also continue to assess and balance 
risk across the spectrum of operations.
    Question. A major objective of the Department over recent years, as 
well as guidance in the QDR report, has been toward increasing emphasis 
on and institutionalization of lower-end, irregular, counterinsurgency, 
and stability type operations.
    What is your understanding and assessment of the Department's 
efforts to date to institutionalize and support these capabilities?
    Answer. During over 10 years of continuous operations in these 
areas, DOD has made remarkable progress toward developing and 
institutionalizing joint capabilities for irregular warfare, 
counterinsurgency, and stability operations. We have further supported 
these capabilities by adopting lessons learned and resetting and 
maintaining the equipment that facilitates those operations. The United 
States will continue to face challenges from non-state adversaries and 
regions threatened by terrorist or insurgent violence. If confirmed, I 
will closely examine our efforts to develop the right capabilities at 
the right price effectively counter these threats.
    Question. If confirmed, how would you propose to redistribute the 
Department's efforts and resources, if at all, to ensure that the force 
is prepared for force-on-force combat at the same time it increases and 
institutionalizes capabilities and support for irregular, 
counterinsurgency, and stability operations?
    Answer. The 2010 QDR recognized the need to balance future military 
capabilities to meet a broad range of threats across a wide spectrum of 
adversary capabilities and operating environments. In a period of 
potentially significant budget constraints, it will be imperative to 
appropriately balance risk across the spectrum of potential operations. 
If confirmed, I will support existing and ongoing efforts and processes 
to assess the impact of these constraints and ensure our forces retain 
the appropriate size and mix of capabilities. I am committed to 
preserving the appropriate mix of hard-won, joint capabilities and 
experiences for our decade-plus of war.
                       defense acquisition reform
    Question. Two years ago, Congress enacted, without a dissenting 
vote in either House, the Weapon Systems Acquisition Reform Act 
(WSARA). WSARA is designed to ensure that new defense acquisition 
programs start on a sound footing, to avoid the high cost of fixing 
problems late in the acquisition process.
    What are your views regarding WSARA and the need for improvements 
in the Defense acquisition process?
    Answer. I welcome WSARA. WSARA mandated much needed reforms to the 
defense acquisition process. I support its requirements for DOD to 
examine cost, schedule and performance trade-offs to reduce cost-
growth. I am also aware that DOD has pursued significant additional 
improvements to the acquisition process to include examining the 
requirements process. If confirmed, I will not only work to implement 
the changes required by law, but I will continue to pursue improvements 
to defense acquisitions processes.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process B requirements, acquisition, and budgeting?
    Answer. The 2009 Weapons Systems Acquisition Reform Act was an 
important step forward in improving defense acquisition. It is my 
understanding, that DOD has made significant progress toward 
implementing its requirements and achieving our shared interest in 
deriving better value for every dollar spent. I fully support the DOD 
``Better Buying Power'' initiative to coordinate the requirements, 
acquisition, and budget processes in a way that mandates affordable 
requirements to ensure programs start from a solid foundation. If 
confirmed, I would work to enhance the quality of interaction among 
these processes and promote greater participation by the warfighter 
throughout the acquisition lifecycle.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. While I am not yet familiar with the entirety of the 
defense budget, my sense is that the current investment budget for 
major systems is not affordable in this fiscal and operational 
environment. Certain progress was made on this front under the 
leadership of Secretary Gates and Admiral Mullen leading to a leaner 
major weapons system portfolio. But, we are not finished pursuing cost 
control and affordability. Given historic cost growth and current 
budget pressures, we must closely manage existing programs, and start 
new programs smartly, so that cost growth does not make them 
unaffordable. If confirmed, I will continue to examine the investment 
budget closely for opportunities to achieve greater cost savings and 
improve overall weapon systems affordability.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. If confirmed, I will address weapons system cost growth in 
several mutually supportive ways. I will directly leverage the Joint 
Requirements Oversight Council (JROC) ``trip-wire'' process to monitor 
for cost growth and schedule delays in Major Defense Acquisition 
Programs. This process also helps ensure I am prepared to properly 
advise the Secretary of Defense with regard to the Nunn-McCurdy 
certification process and participate in the still maturing 
Configuration Steering Boards. Additionally, balancing system 
performance and cost will continue to be a central goal of the ongoing 
Joint Capabilities Integration and Development process review. Program 
and portfolio affordability will be important factors in performance 
trade-off decisions.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that requirements are realistic, and prioritized?
    Answer. The National Defense Authorization Act for Fiscal Year 2011 
implemented requirements process changes that I would allow to mature 
if confirmed. For example, the addition of combatant commanders as 
voting members of the JROC is proving its value to ensure that Service 
and Joint priorities are properly aligned. A further improvement is the 
requirement that JROC validations specify cost, schedule, performance, 
and quantity to ensure we get the capabilities we need in a responsive 
and reasonable timeframe. As the Joint Capabilities Integration and 
Development Systems (JCIDS) review goes forward, I anticipate several 
reform recommendations that will improve our ability to establish 
increasingly realistic and properly prioritized requirements.
                     contractors on the battlefield
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan has often exceeded 
the number of U.S. military deployed in those countries.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. While I am not yet in a position to render a judgment about 
whether we have become too dependent on contractors, my instincts 
suggest that this is the case. Recently as a result of a study by the 
Chairman of the Joint Chiefs, the Secretary of Defense issued a 
memorandum to DOD directing a wide range of changes to improve 
operational contracting support along with guidance for the assessment 
high-risk contracted capabilities. If confirmed, I will review this 
study and the military departments' assessments.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. The most significant risk is in contract oversight. DOD's 
recent experience supporting contingency operations in Iraq and 
Afghanistan has shown that poor contractor management can increase the 
potential for fraud, waste, and abuse. Additionally, interaction of 
contractors with local communities, along with their potential use of 
force, has a direct impact on the operational mission. Therefore, it is 
imperative for DOD to properly plan for, use, and manage contractors in 
the operational environment. As with any situation, understanding the 
current problems and their risks are the first step in mitigation. It 
is my judgment that the CJCS and the Secretary of Defense have set the 
department on the right path and if confirmed, I look forward to 
reviewing ongoing assessments and continuing efforts to improve the use 
and oversight of contractors.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. I'm not sure. I recognize that initially DOD was not 
properly organized and staffed to effectively manage contractors in the 
ongoing contingency operations, but corrective actions have been 
implemented over the last several years. Operational contracting 
support efforts will enhance our ability to modify the way we source 
and oversee contracting. If confirmed, I will review ongoing efforts to 
ensure that DOD institutionalizes its contingency contracting 
capabilities and that the lessons learned from our experiences in Iraq 
and Afghanistan are applied to future operations.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. DOD has made significant progress in institutionalizing 
effective management of contractors during contingency operations 
through several ongoing efforts. DOD's management of contractors on the 
battlefield has evolved from a more reactionary approach toward pro-
active theater-wide management. As an example, DOD stood up Task Force 
2010 and Task Force Spotlight to improve contractor management and 
oversight in Afghanistan. Furthermore, we are using the task force 
efforts to shape how the department will continue the 
institutionalization of contractor management in future operations. If 
confirmed, I will review these efforts and ensure they are adequate and 
effective, and I will continue to champion effective management 
processes.
    Question. Do you believe DOD and other Federal agencies should rely 
upon contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. Based on current force structure and the level of 
operations tempo, the use of contractors for some security functions is 
necessary. We can mitigate the risk that this accrues if we properly 
plan for contractor use and have a clear designation of their mission 
and assigned tasks. Furthermore, we must ensure they have the necessary 
skills and training to perform these tasks. Finally, we must have the 
proper oversight in place. Contractor use of force should remain 
limited to self-defense and the defense of others against criminal 
violence and the protection of critical property. With proper planning, 
contractor capability, and government oversight, I think that the 
limited use of security contractors by DOD in contingency operations is 
acceptable. It would be inappropriate for me to comment on their use by 
other departments. If confirmed, I will ensure that proper limitations 
on DOD private security contractors are in place and enforced.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq and Afghanistan?
    Answer. No. The use of contractors to perform security functions 
remains a viable DOD option and has been necessary in Iraq and 
Afghanistan. As with all security forces, the inappropriate use of 
force remains the greatest risk to our policy objectives. Contracted 
private security, used correctly with proper management and oversight, 
preserves DOD's ability to achieve defense and foreign policy 
objectives. If confirmed, I welcome the opportunity to continue to 
examine and improve DOD's procedures to manage and provide oversight of 
these contractors.
    Question. What steps, if any, would you take, if confirmed, to 
ensure that any private security contractors who may continue to 
operate in an area of combat operations act in a responsible manner, 
consistent with U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would work to further institutionalize two 
primary initiatives already underway. First, the use of private 
security contractors in any area of combat operations must be fully 
planned, coordinated, and synchronized with the Joint Force Commander 
of the designated area of responsibility. Furthermore, commanders on 
the ground must have the authority and flexibility to restrict security 
contractors' as the operations dictate. Second, we must continue to 
hold private security contractors accountable and work with our host 
nation partners to ensure rigorous licensing procedures and enforcement 
of their laws.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. Individuals who provide support to U.S. agencies in our 
vital missions overseas should not be allowed to operate with legal 
protection. They should be held accountable for any criminal activity. 
This is especially true as we work to support the Rule of Law in 
operations in Iraq and Afghanistan. If confirmed, I would support 
further study in order to investigate the most effective legal method 
to ensure private security contractor accountability.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. Individuals who provide support to the U.S. military 
operations as private security contractors should not be allowed to 
operate with impunity. They should be held accountable for any criminal 
activity. This is especially true as we work to support the Rule of Law 
in Iraq and Afghanistan. If confirmed, I will remain open to all 
recommendations for ensuring accountability of private contractors.
                              future army
    Question. In a speech at West Point last February, former Secretary 
Gates argued that it is unlikely that the Nation will commit large land 
forces to future conflicts, and that the Army must ``confront the 
reality that the most plausible, high-end scenarios for the U.S. 
military [will be] primarily naval and air engagements.'' The Army's 
first major challenge, he stated, is ``how will it structure itself--
how will it train and equip--for the extraordinarily diverse range of 
missions it will face in the future?'' Former Chief of Staff of the 
Army, General George Casey Jr., said he expected that over the next 10 
years we will still have 50,000 to 100,000 soldiers deployed in combat. 
Chairman of the Joint Chiefs Admiral Michael Mullen said that for 
planning purposes the Department assumes 6 to 10 combat brigades will 
likely be deployed.
    Do you agree that high-end military operations will primarily be 
naval and air engagements such that the Army will have difficulty 
justifying the size, structure, and cost of its heavy formations?
    Answer. I believe that the strength of our military is in the 
synergy and interdependence of the joint force. My experience of 37 
years suggests that single-component solutions to security challenges 
is at best risky and at worst foolhardy.
    Question. In your view, what are the most important considerations 
or criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. Our Nation needs a versatile Army that can conduct 
operations across the spectrum of conflict. We need an Army that can 
win conventional fights, remains adept at conducting counterinsurgency 
and stability operations, and that can work shoulder to shoulder with 
the ground forces of our partner states to impart the necessary skills 
that can help them bring security and stability to their own countries 
and regions. I understand that some tradeoffs across the force may be 
required to meet cost-savings goal. If confirmed, I will work closely 
with military and civilian leaders to balance these risks and help 
develop a versatile Army for a versatile Joint Force.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. Our Army, like our other Services, must provide options to 
the national command authority. It must be responsive, decisive, 
versatile, interdependent, and affordable. In sizing it, we must 
address three fundamental questions: what do you want it to do, how 
often, and for how long. This requires a comprehensive analysis of the 
security environment and a detailed assessment of the relationship of 
the Active, Guard, and Reserve components.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the F-35 Joint Strike Fighter (JSF) 
program to modernize our tactical aviation forces with fifth generation 
tactical aircraft equipped with stealth technology.
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. The Department has the necessary fighter aircraft capacity 
in the near-term to support our Nation's security needs. Based on the 
current and projected threats, I am convinced that we must transition 
to a fifth generation tactical aviation capability across the U.S. 
Military Services.
    Question. What is your assessment of whether the restructuring of 
the JSF program that we have seen over the past 2 years will be 
sufficient to avoid having to make major adjustments in ether cost or 
schedule in the future?
    Answer. It is my understanding that the issues with the JSF program 
have been addressed through a deliberate requirements and acquisition 
review process. A high level plan was approved in January 2011, and the 
program expects to deliver a fully compliant weapon system. If 
confirmed, I will closely monitor the progress of the program to ensure 
affordability.
                         information assurance
    Question. Protection of military networks, information, and 
communications is critical to DOD operations.
    What is your understanding and assessment of the cyber security 
posture of the Department's critical information systems?
    Answer. The DOD Strategy for Operating in Cyberspace (DSOC) lays 
out a roadmap for DOD to effectively conduct the defense of critical 
information systems and strengthen overall cyber security. The 
Department is working aggressively with national agencies to assess 
current and future threats while ensuring the availability, integrity, 
and confidentiality of critical information systems.
    Question. What Department-wide policies, guidance, or changes in 
legislation do you believe are necessary to address information and 
cyber security challenges for current and future systems?
    Answer. DOD recently released the first DOD Strategy for Operating 
in Cyberspace which addresses information and cyber security challenges 
along with the ways and means for employing defense capabilities to 
meet these challenges. Furthermore, I understand that DOD supports the 
administration's recommendations for cyber legislation recently 
provided to Congress. If confirmed, I will work with the administration 
to provide recommendations to Congress on any additional legislation 
that may be required to address information and cyber security 
challenges.
                       ballistic missile defense
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting this year and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against future long-range missiles from Iran, including those 
that could reach the United States, thus augmenting the existing 
homeland missile defense capability.
    Do you support the Phased Adaptive Approach to Missile Defense in 
Europe?
    Answer. I support the President's policy on European Phased 
Adaptive Approach (EPAA).
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran, and of hedging 
against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review and, if confirmed, will you 
implement them?
    Answer. I support the administration's policies, strategies, and 
priorities in concert with this review. If confirmed, I will implement 
the policies set forth including those that sustain and enhance our 
Nation's defense while increasing our capability against the growing 
regional threats.
    Question. The two most recent flight tests of the Ground-based 
Midcourse Defense (GMD) system failed to intercept their targets. The 
Director of the Missile Defense Agency (MDA) has formed a Failure 
Review Board to determine the root cause of the most recent failure and 
will devise a plan to correct it, including two flight tests to confirm 
the correction. Until the second flight test confirms the correction, 
the Director of MDA has suspended production of the Exoatmospheric Kill 
Vehicles (EKVs) of the type that failed last year's flight tests, in 
order to ensure that those EKVs do not contain a flaw that would need 
to be corrected later.
    Do you agree that it is essential to correct the problem that 
caused the December 2010 flight test failure, and to verify the success 
of that correction through extensive testing, including flight testing, 
before continuing production and delivery of additional EKVs for the 
GMD system?
    Answer. I agree that it is essential to have confidence and 
reliability in the EKVs prior to continuing production in order to 
control costs and ensure the United States has an effective missile 
defense system.
    Question. Do you support the continued modernization and 
sustainment of the GMD system?
    Answer. Yes. The GMD system currently protects the United States 
from the threat of a limited ICBM attack. It is important to maintain 
this advantage by continuing to improve the GMD system.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. Yes. Russia's cooperation could improve the effectiveness 
of U.S. and NATO missile defenses as well as those of the Russian 
Federation. An effective multi-partner ballistic missile defense system 
has the potential to deter aggression and strengthen regional security.
    Question. What do you believe would be the security benefits, if 
any, of such missile defense cooperation, and what types of cooperation 
do you believe would be beneficial?
    Answer. Cooperation could result in tangible benefits to the United 
States, Europe, and Russia in the form of a more robust common defense 
against missile threats, which could strengthen strategic stability and 
transparency. U.S. cooperation with Russia along the lines of shared 
early warning of missile launches, technical exchanges, operational 
cooperation and planning, and joint exercises would be mutually 
beneficial.
    Question. Do you agree that irrespective of Russian objections, the 
United States is committed to the continued development and deployment 
of United States missile defense systems, including qualitative and 
quantitative improvements to such systems?
    Answer. Yes, the United States is committed to continued 
development, improvement, and deployment of U.S. missile defense 
systems in order to enhance our defense capabilities. Cooperation with 
Russia on missile defense has the potential to enhance U.S and NATO 
security.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a nation heavily dependent on space assets 
for both military and economic advantage, protection of space assets 
became a national priority.
    Do you agree that space situational awareness and protection of 
space assets should be a national security priority?
    Answer. Yes. Space situational awareness underpins our ability to 
operate safely in an increasingly congested space environment. It is 
vital that the United States protect national space assets to maintain 
the benefits and advantages dependent on our access to space.
    Question. In your view should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. Yes. The United States should ensure its space policy and 
programs address China's continued development of space systems as well 
as systems of other space-faring nations. Our National Security Space 
Strategy acknowledges space is vital to U.S. national security and our 
ability to understand emerging threats, project power globally, conduct 
operations, support diplomatic efforts, and enable the global economy. 
We are and should seek opportunities to co-operate in space and lead in 
the formation of rules and behaviors for benefit of all nations. I 
support development of U.S. space capabilities which preserve the use 
of space for the United States and our allies, while promoting the 
principles of the 2010 National Space Policy.
    Question. If confirmed would you propose any changes to National 
Security space policy and programs?
    Answer. I am not in a position to recommend any proposed changes at 
this time. If confirmed, I would continue implementation of the 
President's 2010 National Space Policy and the supporting National 
Security Space Strategy.
    The Federal Communications Commission is currently considering 
licensing a telecommunications provider who plans on using a signal 
that has the potential to interfere with GPS signals and GPS receivers.
    Question. If confirmed, would you look into this matter to 
understand the impact of the proposal to national security GPS signals 
receivers and commercial receivers used by the national security 
community?
    Answer. It is my understanding that the Joint Staff is currently 
reviewing this issue, and if confirmed, I will ensure continued 
emphasis. We are committed to working within DOD and with various 
government agencies and the FCC to ensure that GPS remains a secure and 
reliable national asset.
    Question. What is your view on weapons in space and the merits of 
establishing an international agreement establishing rules of the road 
for space operations?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, which states that the United States will pursue bilateral 
and multilateral transparency and confidence-building measures to 
encourage responsible actions in, and the peaceful use of, space. I 
understand the Department is currently evaluating the European Union's 
proposed international Code of Conduct for Outer Space as a pragmatic 
first set of guidelines for safe activities in space. If confirmed, I 
look forward to continuing this evaluation for space operations.
                           strategic systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. I share the President's and the Secretary's commitment to 
maintaining a safe, secure, and effective nuclear deterrent. 
Sustainment of our nuclear deterrent requires modernization of delivery 
systems and life extension programs (LEP) for warheads. Successfully 
accomplishing this will require balancing our current commitments with 
our national interests and strategic priorities.
    Question. If confirmed will you review the modernization and 
replacement programs to ensure that they are cost effective?
    Answer. If confirmed, I will continue to support our commitment to 
sustaining and modernizing a safe, secure, and effective nuclear 
deterrent that supports strategic stability in an efficient and cost 
effective manner while strengthening regional deterrence and reassuring 
allies and partners.
                           readiness funding
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
military equipment?
    Answer. Each of the Military Services uses costing models to 
estimate funding for maintenance of equipment at various levels of 
readiness, including support of overseas contingency operations. Their 
estimates are based on readiness metrics such as system miles, steaming 
hours, or flying hours. It is also my understanding that the Joint 
Staff evaluates readiness across the Joint Force.
    Question. Do you believe that we need an increased investment to 
reduce the backlog in equipment maintenance and improve readiness?
    Answer. My primary concern is with reset funding for equipment 
readiness that currently comes out of Overseas Contingency Operations 
(OCO) funding. If confirmed, I will examine this issue further. At this 
juncture, however, it is my understanding that we will need OCO funding 
2 years after the end of the conflict in order to ensure all equipment 
is reset. Without OCO funding, there will be significant pressure on 
the base budget maintenance accounts to cover those costs, which could 
impact long-term readiness.
                      operational energy budgeting
    Question. The committee recently received the fiscal year 2012 
budget certification report from the Assistant Secretary of Defense for 
Operational Energy Plans and Programs. The certification report 
highlighted several failures by the Services to fund significant energy 
efficiency and renewable energy programs, such as: smart and green 
energy (SAGE), tactical fuel managers defense (TFMD), near-term and 
mid-term modifications to legacy systems to increase efficiency and 
reduce operational energy demand, and tent foaming efforts at forward 
operating bases.
    Do you believe the Department should increase funding for 
operational energy requirements, renewable energy opportunities, and 
energy efficiency demands?
    Answer. My understanding is that DOD certified the 2012 budget 
submission as adequate to implement operational energy strategic goals. 
As identified by DOD's Operational Energy Strategy, many operational 
energy improvements do not necessarily require increased funding and 
could ultimately save DOD money. If confirmed, I plan to closely 
monitor the implementation of the Operational Energy Strategy. Overall, 
I think DOD needs to improve the incorporation of energy considerations 
into our strategic planning and force development processes. In doing 
so, the Department will inherently make investments in energy 
efficiency, alternative energy, and reliability to increase operational 
effectiveness.
                                  iraq
    Question. What do you believe are the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. Perhaps the most important lesson is that our country must 
remain prepared for the difficult work that occurs in the wake of major 
combat. Future strategic and force sizing constructs must account for 
all phases of conflict. We must plan and train with our civilian 
counterparts and be prepared to operate effectively both at peace and 
during post combat. Furthermore, our political objectives are best 
achieved when all the instruments of national power are coordinated 
toward a common purpose. Finally, I am reminded of the importance of 
working with allies and partners, none more important than the host 
nation populace, in order to attain our objectives.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon these lessons learned?
    Answer. The Iraq War has led to deep and wide-ranging changes in 
all of the areas listed above. For example, the Department better 
understands and is better at Irregular Warfare and Stability 
Operations. Our shared goal across the Department is to learn and apply 
these important lessons and experiences to strengthen the Joint Force. 
The military has demonstrated the ability to learn and adapt across 
many areas, and if confirmed, I will continue to integrate that 
valuable knowledge into future doctrine, training, and readiness.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure, or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. Simply stated, we must learn faster and understand more 
deeply than our adversaries. If confirmed, I will closely monitor the 
process by which lessons translate into the development of the Joint 
Force.
    Question. What is your assessment of the current security situation 
in Iraq?
    Answer. The overall security situation is relatively stable. I am 
concerned about increased violence in southern Iraq, about the 
inability of the Iraqi Government to appoint security ministers, and 
about the enduring potential for Arab-Kurd violence in Kirkuk and 
Mosul.
    Question. What is your assessment of the threat posed by al Qaeda 
in Iraq?
    Answer. Al Qaeda in Iraq still poses a significant threat within 
Iraq. Al Qaeda in Iraq continues to pursue an attack strategy focused 
on Iraqi government officials and security forces personnel, Shia 
civilians, and Sunnis who oppose the terrorist group's agenda. However, 
the ISF demonstrates improving counter-terrorism capability and the 
capacity for maintaining internal security despite occasional high-
profile attacks.
    Question. What are the main challenges to stability and security in 
Iraq over the coming months?
    Answer. In the coming months, the main threats to Iraqi stability 
and security are attacks by Sadrist and Iran-sponsored forces against 
departing U.S. forces and the unresolved status of territories claimed 
by the Kurdistan Regional Government.
    Question. Do you support the current plan for the drawdown of U.S. 
forces from Iraq consistent with the U.S.-Iraq Security Agreement of 
2008 signed by President Bush and Prime Minister Maliki?
    Answer. I support the current plan for the drawdown of U.S. forces 
from Iraq in accordance with the 2008 U.S.-Iraq Security Agreement. It 
is important that we fulfill our obligations under this bilateral 
agreement, and we are on track to complete the drawdown by December 31, 
2011.
    Question. Responsibility and authority for lead U.S. agency in Iraq 
is scheduled this year to transition from DOD to Department of State 
(DOS). By October 2011, the Department of State is supposed to achieve 
an initial operating capability as lead agency and achieve full 
operating capability by December.
    What is your understanding and assessment, if any, of the planning 
and progress on executing this transition from DOD to DOS? In your 
view, what are the sources of greatest risk, if any, to the current 
plan and successful implementation of this transition?
    Answer. My understanding is that the transition from the DOD and 
DOS is on schedule. The DOD, DOS, and other agencies have undertaken 
unprecedented levels of coordination and planning for the transition in 
Iraq. As one would expect with a transition of this scope and 
complexity, challenges exist, but it is my understanding that we are 
collaborating well to overcome them in order to meet our objectives. Of 
concern, failure to support fiscal year 2012 State Department budget 
requirements for Iraq increases the risk for a successful transition of 
responsibilities.
    Question. If confirmed, what changes, if any, would you propose to 
the current plan or actions for implementation of the transition?
    Answer. I wouldn't anticipate any changes at present but will 
remain vigilant.
    Question. In your view, what will be the nature of the U.S.-Iraq 
strategic relationship after December 31, 2011?
    Answer. In my judgment, a long-term strategic partnership with Iraq 
is in our national interest. As stated by the President, we support an 
Iraq that is sovereign and self-reliant; that has a just, 
representative and accountable government; that denies support and safe 
haven to terrorists; that is integrated into the global economy; and 
that contributes to regional peace and security. All these elements of 
our desired strategic relationship with Iraq were codified in the 2008 
Strategic Framework Agreement. If confirmed, it is my intention to 
closely monitor the status and help to advance our relationship.
    Question. If the Government of Iraq were to ask for the continued 
presence in Iraq of U.S. forces beyond the end of 2011, would you 
support the deployment or retention of additional troops in Iraq beyond 
the current deadline for U.S. troop withdrawal?
    Answer. I am not in a position to recommend such a proposal at this 
time. If confirmed, I would provide my best military advice to the 
Secretary of Defense and President after considering all relevant 
factors.
    Question. What do you see as the greatest challenges for that 
relationship over the coming years?
    Answer. The greatest challenges will be maintaining U.S. engagement 
and support for Iraq during a time of change. Recent turmoil in the 
broader Middle East highlights the importance of active U.S. engagement 
and maintaining strategic partnerships with regional partners based on 
mutual interests and mutual respect. We must maintain focus on Iraq in 
order to advance broader U.S. objectives of peace and security in the 
region.
                    stability and support operations
    Question. The U.S. experience in Iraq and Afghanistan has 
underscored the importance of planning and training to prepare for the 
conduct and support of stability and support operations in post-
conflict situations.
    In your view, what are the appropriate roles and responsibilities 
of DOD and other departments and agencies of the Federal Government in 
the planning and conduct of stability operations?
    Answer. In my judgment, stability operations are a core U.S. 
military mission which we should be prepared to conduct with a 
proficiency equivalent to combat operations. Stability operations cut 
across all phases of conflict. The military often operates in a 
supporting role to other Federal Government agencies. However, when 
directed, we have taken a lead role in stability operations activities 
to establish civil security and control, restore essential services, 
repair and protect critical infrastructure, and deliver humanitarian 
assistance. In these cases, our objective is to transition the lead 
responsibility to other U.S. Government agencies, the host nation or 
international organizations as the situation dictates. As seen in 
recent operations, experts from the State Department, U.S. Agency for 
International Development (USAID), Justice Department, and other 
agencies are needed to build host nation capacity to improve economic 
development, establish effective governance, and institute the ``rule 
of law'' which are essential for stability.
    Question. Do you believe that the U.S. Government needs to 
establish new procedures to manage stability operations? If so, why?
    Answer. We should certainly capture the lessons of 10 years of 
conflict. DOD policy regarding stability operations adequately 
clarifies roles and responsibilities. We now treat stability operations 
as a core U.S. military mission and are prepared to conduct those 
operations on par with major combat operations in support of other U.S. 
Government departments and agencies. If confirmed, I will continue to 
assess our ability to conduct stability operations, and I will remain 
open to ideas and issues that might suggest needed change.
    Question. In Afghanistan, the Combined Joint Interagency Task Force 
435 works in partnership with the Government of Afghanistan, the U.S. 
interagency, and international partners to conduct detention and 
corrections operations and promote the rule of law and judicial sector 
reform.
    What role do you believe DOD should play in providing training and 
advocacy for ``rule of law'' development in Iraq and Afghanistan?
    Answer. With respect to Iraq and Afghanistan, the ``rule of law'' 
is essential for the creation of stable and enduring democratic 
governments that can prevent the return of terrorists. I strongly 
support the State Department's lead in building rule of law capacity in 
both of these countries. DOD has the capability and capacity to provide 
``rule of law'' related training in a supporting role for civilian and 
military leaders.
                 afghanistan counterinsurgency strategy
    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. Yes. Over the past 18 months we have made significant gains 
in halting Taliban momentum and reversing it in many places. The surge 
has allowed us to establish security in previously held Taliban areas 
such as Central Helmand and Kandahar, areas of historic importance to 
the insurgency, and to expand Afghan National Security Force capacity 
and capability. As we drawdown our surge force in Afghanistan and 
partner with Afghan forces, this will serve to expand the Afghan 
National Security Forces' responsibilities and their control of 
Afghanistan.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan? For example, would you support an 
increase in counterterrorism action in Afghanistan?
    Answer. In my judgment, the current U.S. strategy in Afghanistan is 
on track. Counterterrorism forces support the ISAF campaign plan and 
are certain to remain an integral part of this effort. If confirmed, 
and if conditions on the ground warranted a reevaluation of an aspect 
of the current strategy, I would unhesitatingly provide my 
recommendations to the Secretary of Defense and President.
    Question. What is your assessment of the progress of the 
counterinsurgency campaign in Afghanistan?
    Answer. We have made important gains over the past 18 months, and 
we have reached a point in the campaign where a responsible drawdown in 
U.S. surge forces is possible. An increasing number of Afghan forces 
will join the fight in protecting Afghanistan over the next 15 months, 
and the international community has demonstrated its intention to 
support Afghanistan until at least 2014.
    Question. In your view, how significant an impact does the death of 
Osama bin Laden have on the counterinsurgency campaign in Afghanistan?
    Answer. The death of Osama bin Laden is important as it 
demonstrated our ability to deny safe haven to al Qaeda (AQ) members 
and our commitment to disrupt, dismantle and defeat AQ. While it is too 
early to fully understand the long term impact of his death, I believe, 
the mutual relationship between AQ and the Taliban has been dealt a 
severe blow and that we have an opportunity to prevent Afghanistan from 
once again becoming a safe haven and staging area for AQ.
  transition of security responsibility in afghanistan and u.s. troop 
                               reductions
    Question. On June 22, President Obama announced his decision to 
draw down 10,000 U.S. troops from Afghanistan by the end of this year 
and to withdraw the remaining 23,000 ``surge'' force by September 2012, 
for a total drawdown of 33,000.
    Do you support the President's decision to begin reducing U.S. 
forces in July 2011? Why or why not?
    Answer. Yes, I agree with the President's decision. If confirmed, I 
will constantly monitor and assess the situation in consultation with 
the theater commanders and should it be determined that the situation 
has changed, I will advise Secretary of Defense and President.
    Question. Do you support the President's decision regarding the 
size and pace of reductions in U.S. forces? Why or why not?
    Answer. Yes. I support the President's announced drawdown goals for 
a condition-based withdrawal of surge forces. As these surge forces are 
withdrawn, the ANSF will continue to grow in capacity and capability 
while assuming more responsibility. This component of the strategy is 
designed to safeguard the significant gains made possible by the surge. 
I believe the strategy is working at this time. If confirmed, and if 
conditions on the ground warranted a reevaluation of both the pace and 
scope of the draw down, I would unhesitatingly provide my 
recommendations.
    Question. At the NATO Summit in Lisbon last November, the 
participants in the International Security Assistance Force endorsed 
President Karzai's goal of the Afghanistan National Security Forces 
having the primary responsibility for providing security throughout 
Afghanistan by 2014. In March of this year, President Karzai announced 
the first tranche of provinces and municipal districts designated for 
the transition of security responsibility to an Afghan lead.
    Do you support the goal of transitioning responsibility for 
security throughout Afghanistan to the Afghan security forces by 2014?
    Answer. Yes. There is still a significant amount of work to be done 
but, I believe, the transition of security can be accomplished to meet 
this objective.
    Question. Do you support the decision to begin this month the 
transition of lead security responsibility to the Afghan security 
forces in the areas announced by President Karzai, with that initial 
transition of security lead to be completed by the end of the year?
    Answer. Yes. The first round of transition includes areas such as 
Lash Kar Gah in Helmand Province, an area where we significantly 
invested the surge force and has since seen a remarkable change in the 
security environment. ANSF is providing the bulk of security 
responsibility in Lash Kar Gah today. This is also true in places such 
as Kabul, Bamyan, Herat and Mazar-e-Sharif, which are also part of the 
first tranche of the transition process. I would highlight that 
transition is conditional on the following: transitioned areas have 
sustainable ANSF who are responsible for population security and 
accountable to and serve the people; that ISAF is postured to provide 
over watch; that provincial governance is inclusive, accountable and 
acceptable to the Afghan people; and that the population has access to 
basic social services and adequate rule of law.
    Question. In your view, how important is it to the 
counterinsurgency effort in Afghanistan that the transition of primary 
responsibility to the Afghan security forces for providing security 
throughout Afghanistan be completed by 2014?
    Answer. I think that momentum in Afghanistan has broadly shifted. 
The ANSF are on track to begin the transition process by assuming lead 
security responsibilities in several areas of the country. In my 
judgment, the transition of security will also aid in the 
legitimization of the Afghan government, removing some of the impetus 
behind insurgents who claim to only seek the departure of foreigners.
    Question. In your view, how important is it to the 
counterinsurgency effort in Afghanistan that the initial round of 
transitioning security responsibility to the Afghan security forces 
begins in July and be completed by the end of the year?
    Answer. Transitioning to Afghan lead for security responsibility in 
the Tranche 1 areas is a critical part of our comprehensive civil-
military campaign in Afghanistan. As we seek to eliminate safe havens 
from which al Qaeda (AQ) or its affiliates can launch attacks against 
our homeland or our allies, the Afghan Government must step up its 
ability to protect its people and move forward with actions to build a 
more stable, economically viable country. If confirmed, I will remain 
committed to supporting transfer of lead security responsibility to the 
Afghan Government by the end of 2014.
                  afghanistan national security forces
    Question. Approximately 100,000 more personnel have been added to 
the Afghan National Security Forces (ANSF) since November 2009 and by 
September 2012 another 70,000 Afghan Army and police personnel will be 
added. The NATO training mission is ahead of schedule for meeting its 
target end strength of 305,000 ANSF by October of this year. A new ANSF 
target end strength of 352,000 by 2012 is awaiting final approval by 
the Joint Coordination and Monitoring Board.
    What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. The ANSF continues to improve and is developing into a more 
professional and capable force with each passing day. In May 2011, the 
Afghan National Army (ANA) completed the fielding of all of their 
required infantry kandaks--the ANA equivalent of a U.S. battalion. With 
the fielding of the last infantry kandak, NATO Training Mission-
Afghanistan (NTM-A) shifted its focus from force generation to force 
professionalization. The additional support from NTM-A will enable the 
ANSF to assume security lead of Afghanistan by the end of 2014.
    Question. If approved, will an ANSF end strength of 352,000 be 
sufficient in your view to enable the ANSF to assume lead 
responsibility for security in Afghanistan?
    Answer. Based on the current security environment, I believe so. 
Once all of the 352,000 personnel are fielded, the ANSF should be 
capable of assuming lead responsibility for security in Afghanistan by 
the end of 2014. If confirmed, however, I will closely monitor progress 
to assess whether the ANSF and Afghanistan Government are taking 
ownership of their responsibilities.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. The three primary challenges for the ASNF are literacy, the 
lack of enablers, and force attrition. We are assisting the ANSF by 
providing literacy training, supporting the development of branch 
schools, and helping with leader development programs. If confirmed, I 
will explore all options to increase ANSF capacity by working closely 
with Afghan, U.S. military and civilian leaders and our international 
partners.
    Question. There remains a shortfall in the number of training 
personnel required for the NATO Training Mission-Afghanistan (NTM-A) 
and in the number of embedded training teams, the Operational Mentoring 
and Liaison Teams (OMLTs) embedding with Afghan Army units and the 
Police OMLTs (POMLTs) embedding with Afghan Police units. This 
shortfall may become more acute if the new end strength target of 
352,000 for the ANSF by 2012 is approved.
    What more should be done to get NATO members and other coalition 
partners to meet the ISAF requirements for additional NTM-A trainers 
and OMLTs and POMLTs?
    Answer. Our NATO allies and other coalition partners have 
demonstrated a strong commitment to the mission in Afghanistan over the 
years. As we move forward, we must continue to engage our partners on 
the importance and need for NATO/SHAPE HQ, HQ ISAF, and representatives 
of the NATO training mission. They share our view that a strong and 
capable ANSF is the key to achieve our objectives. Personnel with 
specialized skills such as police, logisticians, medical personnel, and 
maintenance specialists are essential. We must also engage coalition 
members to get their assistance in filling requirements for troops to 
partner with the ANSF.
    Question. If the 352,000 ANSF end strength target is approved, what 
challenges would this present in generating the necessary training 
personnel to build these Afghan security forces?
    Answer. There are obvious challenges associated with training a 
larger force. Although there is work being done to fill all vacant 
trainer requirements, a shortfall of trainers remains. While this 
shortage may delay the development of ANSF, it is my understanding that 
NTM-A is exploring all options to compensate for the shortfall.
    Question. If confirmed, what recommendations, if any, would you 
have for meeting these challenges?
    Answer. The ANSF have made significant gains in creating Afghan 
trainers. The ANA and ANP are participating in Teach the Instructor 
(T2I) programs in order to build their own internal training capacity. 
The ANP have trained 474 instructors and are on track to have 900 
instructors trained by December 2011. Between the U.S., Coalition, and 
Afghan trainers, my understanding is that we will have sufficient 
capacity to meet most training requirements
    Question. A key component of efforts to build the capacity of 
Afghan security forces is partnering ANSF units together with ISAF 
units in the field. An April DOD report states that field reports 
suggest that a partnership ratio of greater than 3 ISAF personnel to 
one ANSF personnel ``reduces the effectiveness of the ANSF's 
participation'' and that ``ANSF are more motivated and, hence, more 
effective when the partnership ratio [between ISAF and ANSF personnel] 
is closer to even.''
    In your view, how effective has partnering been in building the 
capacity of the Afghan Army and Afghan police?
    Answer. We are committed to partnering. Partnering builds the 
capacity of Afghan security forces in terms of capability, confidence, 
and professionalism in the field. The last 18 months have seen 
significant strides in our baseline training, but our partnership 
efforts have proven to be the most effective training mechanism. The 
benefits of partnering work both ways. Our Afghan counterparts have 
made the most rapid improvements where we have higher partnering ratios 
and where our troops live and fight alongside their Afghan partners. In 
addition, our effectiveness increases since Afghan forces understand 
the human and cultural terrain in ways that we do not.
    Question. Would you anticipate ISAF-ANSF partnering moving to a 
partnership ratio below 1:1 (fewer than 1 ISAF soldier for every ANSF 
soldier) as the capability of Afghan security forces improves?
    Answer. Yes. Over time, we will move from partnered operations, to 
providing support with Afghans in the lead, and finally to coalition 
forces in strategic over-watch. There are units already below a 1:1 
partner ratio, and there are increasingly more areas where Afghans are 
in the lead or operating independently. For example, in Kabul Province, 
Afghans lead almost all operations.
                    reconciliation and reintegration
    Question. Under what conditions, if any, should reconciliation 
talks with the Taliban leadership be pursued?
    Answer. Ending the insurgency in Afghanistan will require some sort 
of political settlement between the Afghan Government and the Taliban. 
This settlement must be brokered among the Afghans themselves. To this 
end, I support an Afghan-led reconciliation effort consistent with U.S. 
policy for reconciliation as laid out by the Secretary of State. In 
particular, those who are willing to renounce violence, cut ties with 
al Qaeda, and respect the Afghan Constitution--to include the rights of 
women and ethnic minorities--should be welcomed as part of this 
process.
    Question. What is your understanding and assessment of the current 
program for reintegrating insurgent fighters willing to lay down their 
arms? What additional steps, if any, should be taken to improve the 
reintegration program?
    Answer. It is my understanding that the Afghan Peace and 
Reintegration Program (APRP) is an essential component of our 
comprehensive civil-military campaign. The goal of this Afghan program 
is to convince insurgents to join the peace process, accept the Afghan 
constitution, renounce violence, and rejoin Afghan society. Regarding 
additional steps to improve the program, it's important to note that 
this program is still relatively new in many provinces. One challenge 
among many is the capacity to channel funds from the Afghan national 
level down to the provincial level. Funding at the local level enables 
many of the reintegration opportunities as they emerge. If confirmed, I 
will more closely assess the status of this program.
               u.s. strategic relationship with pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. Our strategic interests and national security goals remain 
to disrupt, dismantle, and defeat al Qaeda and its militant allies, and 
eliminate their capacity to threaten the United States and its allies 
in the future. Tactically, Pakistan secures our southern lines of 
communication into Afghanistan. We also have an interest in stable 
Pakistan and the nonproliferation of nuclear weapons and technology. 
U.S. strategic interests in Pakistan encompass both our relationship 
with Pakistan itself and Pakistan's role in the campaign against 
violent extremists. Our partnership with Pakistan in the context of the 
greater South Asia region holds great potential for security, economic 
advancement, and stability.
    Question. What in your view are the key lessons from the operation 
to kill Osama bin Laden for the U.S.-Pakistan relationship?
    Answer. Our relationship must be pragmatic. Pakistan supports us in 
several key areas. We should leverage those areas and ``meter'' our 
support for them against their support of us. That said, I strongly 
believe we must maintain a relationship with Pakistan.
    Question. How significant do you believe military-to-military 
relations have been for the development of a strategic relationship 
between the United States and Pakistan?
    Answer. Our senior military engagements, and especially our 
security assistance and cooperation programs, have been essential to 
laying the foundations for effective military cooperation between our 
two countries. But these are only foundations. A true strategic 
relationship is only possible when our countries come to appreciate 
more closely the compatibility of our vital interests in the region. 
This can only come through a whole-of-government approach that 
strengthens civilian institutions, promotes the rule of law, and 
supports economic development.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. If confirmed, I would sustain the general approach to 
security cooperation endorsed by the Secretary of Defense and 
President. From my perspective, the guiding tenet of security 
cooperation is to assist in areas the host nation considers important, 
but that also respects the shared interests of the host nation and the 
United States. We should not push programs the Pakistanis do not want 
because doing so dilutes the value of U.S cooperation. Nor should we 
feel compelled to provide equipment or training just because we are 
asked. A frank and respectful dialogue is intrinsic to successful 
security cooperation.
    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan, including foreign military financing 
and training and equipment through the Pakistan Counterinsurgency Fund 
to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations. In addition, the United States 
has provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border and other support provided in connection 
with Operation Enduring Freedom.
    How effective, in your view, has this assistance been in improving 
Pakistan's efforts and commitment to counter terrorists in Pakistan?
    Answer. The Pakistan Counterinsurgency Fund (PCF) has produced some 
important initial results for Pakistan's Frontier Scouts, the Special 
Services Group, and other organizations. The quality of tactical 
maneuver, communications, marksmanship, and intelligence fusion have 
improved survivability and performance in combat against extremist 
groups which threaten Pakistan and the U.S. efforts in Afghanistan. 
U.S. programs offer the potential of exceptional value for both our 
countries, but cannot succeed without the buy-in and invitation of 
Pakistan's sovereign leadership and continued support of the U.S. 
Congress.
                                  iran
    Question. Iran continues to expand its nuclear program and has 
failed to provide full and open access to all aspects of its current 
and historic nuclear program to the International Atomic Energy Agency.
    What more do you believe the United States and the international 
community should be doing, if anything, to dissuade Iran from pursuing 
a nuclear weapons program?
    Answer. If confirmed, I will support the policy objectives for Iran 
established by the President. It is my understanding that we continue 
to apply pressure on Iran to make it clear that Iran's failure to meet 
its international obligations will make it less secure and prosperous. 
Concurrently, we should continue to encourage Iran to become a 
responsible member of the international community.
    Question. What is your understanding and assessment of the military 
threat posed by Iran from its nuclear program and its ballistic missile 
program?
    Answer. Iran is a destabilizing influence in the region. It is my 
understanding that the Government of Iran continues to enrich uranium, 
pursue nuclear capabilities, enhance its ballistic missile program, and 
has failed to provide full and open access to all aspects of its 
current and historic nuclear program to the International Atomic Energy 
Agency. With its nuclear activities and its surrogate activities in 
southern Iraq, there is a high potential that Iran will make a serious 
miscalculation of U.S. resolve.
    Question. In your view, have the various sanctions that have been 
imposed by the international community reduced the military abilities 
of Iran?
    Answer. International sanctions have hindered Iran's weapons 
procurement efforts and driven up the costs associated with obtaining 
necessary components for its military. Sanctions also appear to have 
slowed Iran's progress on its nuclear program. It has also become 
increasingly difficult for Iran to import needed materials or skills 
for its military programs.
                      osama bin laden and al qaeda
    Question. If your view, will the death of Osama bin Laden have a 
significant impact on the conflict against al Qaeda and if so, how?
    Answer. The death of Osama bin Laden is a significant milestone in 
our campaign to disrupt, dismantle, and defeat al Qaeda. The successful 
operation does not mean we can rest, but rather we have a window of 
opportunity to make new gains toward the strategic defeat of al Qaeda. 
It is too early to assess the long term impact of his death, but it 
clearly conveys our persistence, determination, and capability to 
achieve our goals.
    Question. What is your assessment of the threat posed by al Qaeda 
affiliates to the U.S. Homeland, U.S. interests overseas, and western 
interests more broadly? Which affiliates are of most concern?
    Answer. The killing of al Qaeda leader Osama bin Laden may increase 
the threat from al Qaeda's regional nodes to the U.S. Homeland and U.S. 
interests overseas. Each of the regional nodes--al Qaeda in the Islamic 
Maghreb, al Qaeda in Iraq, Somalia-based al Shabaab, and al Qaeda in 
the Arabian Peninsula--eulogized Bin Laden and vowed attacks against 
the United States in retaliation. Al Qaeda in the Arabian Peninsula has 
demonstrated its intent and capability to carry out an attack targeting 
the U.S. Homeland,as evidenced by the group's 25 December 2009 
attempted bombing of a U.S. airliner on approach to Detroit. Each of 
the other three nodes remain largely focused on attacks within their 
respective regions, though each is likely capable of supporting 
operatives engaged in transnational attack planning against U.S. or 
western interests in Europe and possibly the United States.
                              arab spring
    Question. The Arab Spring has changed--and will likely continue to 
change--the political dynamics in the Middle East and North Africa for 
many years to come. These changes will require the United States to 
adjust our military-to-military and defense civilian relations in this 
region. Some observers argue that the United States should reduce 
significantly our military-to-military contact in countries as a result 
of the ongoing changes and others advocate more robust and stepped-up 
contact with our partners in this region.
    In your view, what should be the posture of the U.S. Government on 
military-to-military and defense civilian relations in the region?
    Answer. In my judgment, we have a unique opportunity to support 
some of the Arab Spring reform movements through our military 
relationships. It is my understanding that the Department and our 
combatant commands are reviewing our policies and posture in the region 
to enhance our ability to promote responsible change. If confirmed, I 
will work to ensure our programs and policies further our national 
interests while strengthening our relations in the region.
                                 libya
    Question. Do you support the limited U.S. military mission in 
Libya?
    Answer. Yes. We are operating in Libya as part of an international 
coalition enforcing United Nations Security Council Resolution (UNSCR) 
1973. Our role is to support and assist our partners in protecting 
innocent civilians in Libya. The U.S. military provides unique 
capabilities to this effort such as electronic warfare, aerial 
refueling, intelligence, surveillance and reconnaissance, and unmanned 
aerial systems.
    Question. Do you support broadening the military mission to include 
regime change?
    Answer. The purpose of our military mission, consistent with the 
U.N. Security Resolution 1973, is to protect innocent civilians. As 
directed by the President, we are using all non-military instruments of 
power to apply further pressure on the Qadhafi regime to end the 
conflict. If confirmed, I would consider a wide array of factors before 
providing my advice on whether the military mission should be changed 
for any reason.
    Question. Should the United States provide arms and training to the 
Libyan rebels?
    Answer. It is my understanding the administration has chosen not to 
provide arms or training to the rebels at this time. The purpose of our 
military action is grounded in UNSCR 1973, to protect the Libyan people 
in population centers like Benghazi from a massacre at the hands of 
Qadhafi's forces. If confirmed, I would assess the full range of 
implications for providing arms and training before making any 
recommendation.
                  east africa--al qaeda and al shabaab
    Question. What is your assessment of the threat posed by al Qaeda 
and al Shabaab to the U.S. and Western interests in East Africa and to 
the U.S. Homeland?
    Answer. The al Shabaab threat to U.S. and western interests in East 
Africa is signficant. While al Shabaab remains focused on resisting the 
current Transitional Federal Government and African Union Mission in 
Somalia, the group has the capability to plan attacks against U.S. and 
western interests in East Africa. The April 2009 attacks in Kampala 
proved their capability to stage simultaneous suicide attacks, and 
senior al Qaeda in East Africa operative Harun Fazul had evidence of 
advanced plans to attack European allies with him at the time of his 
death. Finally, al Shabaab's effort to recruit U.S. persons increases 
the threat to the U.S. Homeland.
    Question. What is your understanding of DOD's role in countering 
the threat posed by al Qaeda in East Africa and al Shabaab? What is 
your understanding of DOD's supporting role to other departments and 
agencies of the U.S. Government in this region?
    Answer. It is my understanding that DOD in concert with interagency 
partners has provided security assistance to regional partner nations 
to counter threats from violent extremists. Some of that support is 
also aimed directly at improving counter-terrorism capabilities. I 
cannot provide detail about the operations we are supporting, but I can 
say the work remains critical to our goal of strategically defeating al 
Qaeda and its affiliates.
    Question. What changes, if any, would you recommend to DOD's 
current role in East Africa?
    Answer. If confirmed, I do not anticipate making any immediate 
changes to DOD's role in East Africa. It is my understanding that U.S. 
Africa Command is looking at how best to direct our military efforts in 
the region to work in concert with our interagency partners. In my 
judgment, our goal is a strategy through which security assistance, 
capacity building, cooperation with regional partners, and counter-
terrorism actions are fully integrated to provide security and 
stability in East Africa.
              yemen and al qaeda in the arabian peninsula
    Question. What is your assessment of the current U.S. strategy in 
Yemen and what is your understanding of the role of DOD within that 
strategy?
    Answer. The current strategy in Yemen remains our best option. The 
near term goal of containing and degrading al Qaeda in the Arabian 
Peninsula (AQAP) while pursuing long term initiatives to create a 
stable Yemen that can provide internal security remain valid even 
amidst domestic turmoil. A stable, unified, and economically viable 
Yemen, free of violent extremist, remains in our best interest. My 
understanding of DOD's role is that CENTCOM works with interagency 
partners to build Yemen's counterterrorism capacity and enhance our 
partnerships. Separately, select elements within DOD work with the 
Yemeni Government to disrupt near-term threats to the U.S. Homeland. 
This effort is intended to provide time and space for the Yemeni 
security forces to increase their effectiveness and eventually 
eliminate Yemen as an al Qaeda safe haven.
    Question. Given the ongoing political upheaval and splintering of 
the military in Yemen, what are your views on the United States 
continuing to provide security assistance--most significantly DOD 
section 1206 funding--to Yemeni counterterrorism forces?
    Answer. The ongoing unrest has already weakened the Yemeni 
Government and economy and has allowed al Qaeda in the Arabian 
Peninsula (AQAP) to expand its influence. We will continue to closely 
evaluate our security assistance programs in Yemen, particularly those 
provided under section 1206. It is my understanding that we expect to 
continue counterterrorism cooperation with the Yemeni Government during 
and after any future political transitions, but that we are prepared to 
reevaluate our partnership as necessary to address the changing 
military situation. If confirmed, I will be attentive to the potential 
need to reconsider our approach.
                   north atlantic treaty organization
    Question. In a speech to allies in Brussels in June, then-Secretary 
of Defense Gates delivered a blunt warning about the North Atlantic 
Treaty Organization (NATO) becoming ``a two-tiered alliance''. 
Secretary Gates described a division between ``members who specialize 
in `soft' humanitarian, development, peacekeeping, and talking tasks, 
and those conducting the `hard' combat missions,'' and between ``those 
willing and able to pay the price and bear the burdens of alliance 
commitments, and those who enjoy the benefits of NATO membership . . . 
but don't want to share the risks and the costs.'' He added, ``This is 
no longer a hypothetical worry. We are there today, and it is 
unacceptable.''
    In your view, how important is the NATO alliance to U.S. national 
security interests?
    Answer. The NATO Alliance is vital to the United States. It is a 
collective defense alliance and forum for security dialogue that has 
maintained the trans-Atlantic link and kept Europe peaceful for the 
past 60 years. NATO remains equally important today providing the 
foundation for European and supporting global security. NATO is the 
critical enabler for coalition operations in Afghanistan, and it is 
leading operations in Libya.
    Question. Do you agree with former Secretary Gates that NATO is 
today a two-tiered alliance?
    Answer. I have not been in a position to evaluate it in that way. 
What I do know is that some allies have made the political decision to 
limit the resources dedicated to defense. This has forced critical 
choices between spending money on transforming their militaries and 
contributing to alliance operations. It has also resulted in an overall 
loss of effectiveness, which, while initially minor, has compounded 
over time. Some allies remain capable partners, while others' past 
decisions now limit their ability to contribute to collective security.
    Question. Given the significant budgetary constraints facing many 
NATO allies, what in your view needs to be done to enhance the 
capabilities of the NATO alliance to undertake combat operations?
    Answer. Several NATO allies are planning further cuts to defense 
investment in order to sustain their operations in Afghanistan and 
elsewhere while coping with financial constraints. To enhance 
capabilities, Allies must prioritize, seek efficiencies and cost 
savings, and invest those savings into maintaining credible military 
power. Additionally, those countries that can afford to should expand 
their investment in defense. Investments should be coordinated among 
Allies, and we all must be mindful of threats and risks to collective 
security.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
5 years?
    Answer. NATO's new Strategic Concept is an important step in 
ensuring that NATO will continue to play its unique and essential role 
in ensuring the common security of its members as well as guide the 
next phase in NATO's evolution. Over the next 5 years, the top NATO 
challenges include: achieving durable progress on a successful 
transition in Afghanistan; implementing missile defense in Europe; and 
stemming the deterioration in European military capability. However, 
this is also an opportunity for allies to develop innovative multi-
national solutions to deliver capabilities in a more cost-effective 
manner such as the C-17 Strategic Airlift Consortium.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. NATO's New Strategic Concept states NATO's commitment to 
the goal of creating the conditions for a world without nuclear 
weapons. However, it also made clear that as long as there are nuclear 
weapons in the world, NATO will remain a nuclear Alliance. NATO has 
initiated a review of its overall posture in deterring and defending 
against the full range of threats to the alliance. NATO's new Strategic 
Concept reflects allies' commitment to a nuclear alliance and to 
nuclear burden sharing as fundamental to deterrence and assurance in 
Europe.
                      u.s. force posture in europe
    Question. In April it was announced that following an extensive 
review of its force posture in Europe, the Department will revise its 
plans to withdraw two of four brigade combat teams (BCTs) from Europe, 
and instead retain three BCTs in Europe. The drawdown of one BCT from 
Europe will not be implemented until 2015, when a reduced demand on 
U.S. ground forces is projected.
    Do you support the decision to reduce the U.S. force posture in 
Europe by one BCT?
    Answer. I support the decision to retain three BCTs in Europe. It 
strikes the best balance between responding to a more constrained 
fiscal environment and the need to maintain a flexible and easily 
deployable ground force to meet Article 5 and other NATO commitments. 
This size force will also allow the United States to engage effectively 
with allies and partners and to satisfy other security objectives.
    Question. What do you see as the U.S. security priorities in Europe 
and would retaining three BCTs in Europe beyond 2015 serve those 
security priorities? Why or why not?
    Answer. U.S. security priorities in Europe are focused on meeting 
our Article 5 NATO security commitments, building partnership capacity, 
and engaging with allies and partners. Additionally, the U.S. and NATO 
allies are preparing to meet a broad range of 21st century threats, 
including new challenges such as missile defense, cyber security, 
countering weapons of mass destruction (WMD), and terrorism at home and 
abroad. In my judgment, retaining three distinct types of BCTs in 
Europe (Heavy, Stryker, and Airborne) enables U.S. European Command to 
meet a wide array of engagement, building partner capacity, and 
interoperability objectives while being prepared to support a full 
range of military operations needed for plausible European and global 
contingencies.
             u.s. force posture in the asia pacific region
    Question. The Defense Department's 2010 report of the QDR states 
that the United States needs to ``sustain and strengthen our Asia-
Pacific alliances and partnerships to advance mutual security interests 
and ensure sustainable peace and security in the region,'' and that, to 
accomplish this, DOD ``will augment and adapt our forward presence'' in 
the Asia-Pacific region.
    Do you agree that the United States needs to augment and adapt our 
presence in the Asia-Pacific?
    Answer. Yes. The Nation's strategic priorities and interests will 
increasingly emanate from the Asia-Pacific region. The rise of new 
powers with their growing share of global wealth, the expanding 
influence of non-state actors, and the potential spread of WMD will 
create a security environment that poses profound challenges to 
international security. The U.S. military should maintain an enduring 
military presence in the Asia-Pacific region that provides tangible 
reassurance that we are committed to Asia's security and the prosperity 
essential to the region's success.
    Question. If so, what specific capabilities or enhancements are 
needed in your view?
    Answer. If confirmed, I will review our military's force posture in 
Asia and make appropriate recommendations on any enhancements. In 
general, U.S. presence must remain capable of reassuring our allies and 
partners in the region while positioning us to deter against--and if 
necessary, defeat--the full range of potential threats. Our actions in 
the Asia-Pacific region should encourage greater regional security 
cooperation by strengthening and expanding our bilateral and 
multilateral relationships so that we preserve stability in Northeast 
Asia while investing new attention and resources in Southeast and South 
Asia.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region?
    Answer. Our alliances in Asia have provided the bedrock for 
security and economic prosperity in the region. We must continue to 
deepen these alliances while evolving them to face current and emerging 
threats. Our security priorities in this region should promote regional 
peace and stability while combating such threats as terrorism, the 
proliferation of WMD, piracy, and cyber security threats. Additionally, 
we must work to maintain free and open access to the maritime, air, and 
space domains.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula?
    Answer. North Korea remains the primary threat to security in 
Northeast Asia. The security situation on the peninsula has reached 
high levels of tension over the past year with the attack on the 
Cheonan and the artillery shelling of Yeonpyeong Island. North Korea 
continues to improve its asymmetric capabilities including WMD, 
ballistic missiles, Special Operations Forces, and cyber capabilities. 
Absent evidence of fundamental change, North Korea will remain a 
serious security threat in the region and a significant concern for the 
United States and the international community.
    Question. In your opinion, what should be the U.S. role in the 
South Korean response to any future North Korean attacks or 
provocations?
    Answer. The U.S. role as part of a combined force with the Republic 
of Korea (ROK) is to deter North Korean aggression and if deterrence 
fails, fight and win. This mission is accomplished through the 
employment of agile and well-trained forces within the ROK-U.S. 
Alliance.
    Question. In your view does the lack of progress in diplomatic 
efforts to persuade North Korea to verifiably dismantle its nuclear 
weapons program inform or guide U.S. nuclear deterrence strategy in the 
region?
    Answer. In my judgment, the U.S. nuclear deterrence strategy has 
helped prevent the resumption of hostilities on the Korean Peninsula 
for more than half a century. Successful deterrence creates the space 
within which diplomacy can operate. The success of diplomatic efforts, 
however, will ultimately hinge on the willingness of North Korea to 
comply with the agreements it makes.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's missile and WMD programs are increasingly a 
direct threat to the United States. These programs already pose a 
serious and real threat to U.S. regional allies and partners. The 
United States must continue to monitor North Korea's capabilities and 
related proliferation, while collaborating with our partners and 
allies, to ensure contingency planning remains adaptive and responsive.
    Question. In your view are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. Proliferation of missile and weapon technology by North 
Korea is a regional and global threat. In my judgment, there may be 
additional steps that can be taken consistent with the President's 
policy. If confirmed, I will work to ensure continued coordination and 
cooperation between DOD, other U.S. agencies, and our international 
partners to strengthen international consensus against proliferation, 
invest in capacity building programs with partner nations, and find 
ways to increase WMD-related information sharing with international 
partners.
                           republic of korea
    Question. What is your understanding of the current U.S. security 
relationship with the Republic of Korea (ROK)?
    Answer. The ROK-U.S. alliance is one of the most successful 
alliances in the world and serves the interests of both of our Nations. 
The United States is committed to the security of the peninsula and 
ensuring the alliance remains a comprehensive, strategic partnership 
with bilateral, regional, and global scope. The alliance's resolve has 
never been stronger, and we should continue to advance the alliance in 
terms of both capability and commitment.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. If confirmed, I will continue to maintain close contact 
with my South Korean counterpart to promote the continuation of a 
strong U.S.-ROK security relationship. DOD and the ROK should continue 
to work closely to realign U.S. forces on the Peninsula and prepare for 
the transition of wartime operational control to the ROK by December 
2015. U.S forces should continue the plan to reposition south of Seoul, 
making the U.S. presence less intrusive to the Korean People and 
improving force readiness and quality of life.
    Question. What is your view regarding the timing of turning over 
wartime operational command to the ROK?
    Answer. The South Korean military is a highly capable and 
professional force and is increasing its ability to lead the defense of 
its country. I appreciate that the United States and the ROK have a 
shared understanding on a comprehensive way forward for the transfer of 
wartime operational control by December 2015. If confirmed, I will 
continue to work with my ROK counterpart to advance this process.
    Question. Do you believe that current planning regarding tour 
normalization in the ROK should be reconsidered in view of the high 
cost of the plan and the risks associated with significantly higher 
numbers of dependents on the Korean peninsula?
    Answer. If confirmed, I will continue to evaluate the associated 
costs and benefits of implementation and make recommendations based 
upon proposed force posture and best way forward. I understand the goal 
of tour normalization is to enhance the quality of life for our 
forward-stationed forces and their families. A stable family improves 
operational readiness. DOD's long-term goal remains full tour 
normalization with the timeline to be determined based upon 
affordability.
                                 china
    Question. From your perspective, what effect is China's expanding 
economy and growing military having on the region at-large and how is 
that growth influencing the U.S. security posture in Asia and the 
Pacific?
    Answer. In my judgment, we should welcome a strong, prosperous, and 
successful China that plays a responsible role in world affairs. 
China's economic growth has been a key factor for the Asia-Pacific 
regions' economic growth and development. Its economic growth has also 
allowed China to embark upon a comprehensive transformation of its 
military forces. However, a lack of transparency into the pace and 
scale of China's military modernization raises concerns within the 
region. If confirmed, I will continue to monitor China's military 
development and engage China to promote stability.
    Question. What do you believe are the objectives of China's 
military modernization program?
    Answer. If confirmed, my new responsibilities will allow me to more 
closely examine this issue. From my current perspective, China appears 
to be building the capability to fight and win short duration, high-
intensity conflicts along its periphery, with a near-term focus on 
preparing for potential contingencies involving Taiwan. This appears to 
include an emphasis on anti-access and area denial capabilities. China 
is also devoting increasing attention and resources to conducting 
operations beyond Taiwan and China's immediate periphery as evidenced 
by public revelations about their aircraft carrier program. China is 
modernizing its nuclear forces and strengthening its nuclear deterrence 
capability, while enhancing its strategic strike capabilities, such as 
space and counter-space operations and computer network operations. 
Additional military missions include humanitarian assistance, non-
combat evacuation operations, and counter-piracy support.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. If confirmed, I would continue to use our interactions with 
China's military to encourage a constructive role in addressing common 
security challenges. Force posture, presence, capability developments, 
and actions that strengthen our alliances and partnerships will 
demonstrate our ability and commitment to maintain peace and stability 
in the Asia-Pacific.
    Question. Do you support the sale of F-16 C/D aircraft to Taiwan?
    Answer. I have not yet had the opportunity to study in detail 
Taiwan's defense needs; however, in accordance with the Taiwan 
Relations Act, we have a responsibility to make available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain a 
sufficient self-defense capability. Our China policy has been 
consistent for the past eight U.S. administrations, and supports the 
Three Joint U.S.-PRC Communiques and the Taiwan Relations Act.
    Question. In the past 6 months, the United States and China have 
had a series of high level military-to-military engagements beginning 
with Secretary Gates' visit to China in January which was followed by 
Chinese General Chen Bingde's visit to the United States in May. Most 
recently, Admiral Mullen traveled to China to meet with General Chen 
and to visit Chinese military sites. Nonetheless, the U.S.-China 
military-to-military dialogue has been strained over the past several 
years and efforts to establish and maintain mutually beneficial 
military relations has been hampered by China's propensity for 
postponing or canceling military engagements in an apparent effort to 
influence U.S. actions.
    What is your general experience with U.S.-China military-to-
military relations?
    Answer. My experience so far has been fairly limited during my 
short tenure as Chief of Staff of the Army. My interactions with my PLA 
counterpart and other senior leaders have focused on the positive 
aspects of a military-to-military relationship to increase cooperation 
between our Nations.
    Question. What is your view of the relative importance of sustained 
military-to-military relations with China?
    Answer. I firmly believe that healthy, stable, reliable, and 
continuous military-to-military relations between the United States and 
China are very important.
    Question. Do you believe we should make any changes in the quality 
or quantity of our military relations with China? If so, what changes 
and why?
    Answer. I understand General Chen's recent visit to the United 
States and Admiral Mullen's trip to China to signify progress in the 
relationship. If confirmed, I will certainly strive to further improve 
the U.S.-China military-to-military relationship, both in terms of 
quantity of exchanges and, more importantly, the quality of the events.
    Question. What is your understanding of U.S. military operations in 
the proximity of the South China Sea and do you think the United States 
should make any changes in those operations?
    Answer. The U.S. military is committed to maintaining peace and 
stability, freedom of navigation, open access, and respect for law in 
international waters, including the South China Sea.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding by GAO related to DOD CN in the last decade.
    What is your understanding and assessment of the DOD CN program?
    Answer. Drug trafficking and transnational organized crime 
continues to be a complex threat to the United States and its interests 
abroad. I have not had an opportunity to assess the DOD's 
counternarcotics program fully. If confirmed, I look forward to 
ensuring the DOD's program supports our Nation's interests and our 
foreign partners, aligns with the National Drug Control Strategy, and 
strives to achieve measureable results.
    Question. In your personal view, should DOD continue to play a role 
in attempting to stem the flow of illegal narcotics?
    Answer. Based on my experience, confronting this issue requires a 
whole-of-government approach to confront the flow of illicit narcotics, 
associated transnational organized criminal activity, and potential 
terrorist connections. Interagency collaboration has been critically 
important to the progress made since the 1980s and should continue. 
Additionally, DOD's existing partnerships with countries throughout the 
world contribute considerably to U.S. Government efforts to confront 
this global problem.
                       counter-piracy operations
    Question. Since January 2009, the U.S. Navy has been patrolling the 
waters of the Gulf of Aden and off the coast of Somalia as part of the 
international coalition engaged in counter-piracy operations. While 
there have been some high profile interdictions and arrests, data 
suggests that the number of pirate attacks has not been diminished in 
any meaningful way. To the contrary, piracy in that region remains a 
significant problem.
    What is your assessment of the counter-piracy mission to date?
    Answer. The presence of the coalition navies continues to deter and 
prevent individual pirate attacks, reducing the success rates of pirate 
attacks by 15 percent in the Horn of Africa region.
    Question. What changes, if any, do you believe are necessary in 
terms of the level of effort by the U.S. and coalition countries and 
also in terms of strategy and tactics?
    Answer. It is my understanding that current DOD and coalition 
tactics and procedures are proving effective, especially when executed 
in conjunction with commercial vessels adhering to industry Best 
Management Practices. Due to the size of the affected region, 
additional naval vessels would not necessarily provide significant 
increase in return on the investment. However, using other instruments 
of government power, such as disrupting pirates' financial networks or 
increasing the judicial capacity and capability throughout East Africa, 
would likely have a greater return on U.S. Government investment.
    Question. Do you think DOD should continue the counter-piracy 
mission, as it has been conducted over the past few years, and, if so, 
how long do you think the Navy can continue the mission without 
experiencing any adverse effect on other missions?
    Answer. Yes. As articulated in the President's Maritime Security 
Policy and the NSS Counter Piracy Action Plan, the United States has a 
unique leadership role in protecting high seas freedom and global sea 
lines of communication, noting that piracy threatens U.S. security and 
economic interests and contributes to regional instability. of pirated 
vessels.
                international peacekeeping contributions
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel to both staff positions and military observers 
in support of U.N. peacekeeping operations?
    Answer. Our troop commitments in Iraq and Afghanistan remain 
substantial and take first priority in my judgment. As these 
commitments change, however, I believe that we should consider 
opportunities for U.S. personnel to contribute to U.N. peacekeeping 
missions. Experience shows that even a small number of trained and 
experienced American servicemembers can have a significant, positive 
effect on U.N. operations.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. I regard U.N. peacekeeping operations as a cost-effective 
alternative to unilateral U.S. military action. These missions save 
civilian lives, promote stability, and support American interests 
around the world. U.S. servicemembers can have a very positive impact 
on U.N. operations, especially in areas where our troops can deliver 
hard-to-find expertise, like logistics and intelligence. If confirmed, 
I would carefully weigh the advantages of additional participation in 
U.N. peacekeeping against potential costs including an increase in the 
operational tempo of our force. I would also acknowledge the reality 
that in some cases, U.S. boots on the ground may not be supportive of 
the mission's desired end state. In these cases, we may be able to 
achieve our objectives in other ways.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. I'm not aware that we have been unresponsive. If confirmed, 
I will seek to learn more about this issue.
                         counter threat finance
    Question. A number of officials in DOD and the Intelligence 
Community (IC) have called for investing significantly more resources 
in identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. To defeat a network it must be attacked in each of its 
components including leadership, operations, supply, and financing. DOD 
has an important role in counter threat finance activities. Terrorist 
activities and illicit networks that traffic narcotics, WMD, or 
improvised explosive devices can and will leverage funding to further 
resource and expand their operations. DOD policy is to effectively 
deny, disrupt, degrade, and defeat our adversaries' ability to attain 
and utilize financial resources. To penetrate the financial networks of 
our adversaries, we must leverage the full capabilities of our Nation 
while simultaneously attaining vital assistance from our allies. If 
confirmed, I will further this effort by working with other U.S. 
Government departments and agencies, as well as with our partner 
nations, in order to effectively counter threat finance activities.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities?
    Answer. In my judgment, DOD should continue to work with and 
support other U.S. Government departments and agencies to conduct 
counter threat finance activities. If confirmed, I do not anticipate an 
immediate need to expand the support that DOD is providing, but we 
certainly must ensure that we are fully engaged in the interagency 
process to counter threat finance activities.
    Question. Transnational criminal organizations in Central America 
and Mexico are having a debilitating impact on the ability of our 
foreign partners to govern their nations and provide opportunities for 
their people.
    Do you think expanded Counter Threat Finance activities in this 
region would be beneficial? If so, what role--if any--should DOD play 
in those activities?
    Answer. NORTHCOM and SOUTHCOM are helping to shape and leverage 
unique capabilities in support of our foreign and domestic mission 
partners. If confirmed, I will examine this issue carefully.
                       central america and mexico
    Question. During a recent Senate Armed Services Committee hearing, 
the Commanders of U.S. Northern Command and Southern Command discussed 
the increasingly dangerous region along the northern and southern 
borders of Mexico and the devastating impact transnational criminal 
organizations are having on the people and security of southern Mexico, 
Guatemala, Belize, Honduras, and El Salvador. The United States has 
increased its assistance in this region, but--to date--DOD has had only 
a small role.
    What are your views on the threats posed by transnational criminal 
organizations in this region?
    Answer. Transnational Criminal Organizations (TCOs) operating 
throughout Mexico and Central America are better-armed than many police 
forces and demonstrate increasing adaptability and sophistication in 
their methods. Their criminality extends far beyond drugs to extortion, 
robbery, kidnapping, trafficking in firearms and persons, and many 
other illegal activities. All of these activities, coupled with the 
fear, corruption and violence they engender, are having a considerably 
negative impact on the prosperity and security of our partners in the 
region.
    Question. What is your assessment of DOD's current activities in 
Mexico and Central America?
    Answer. U.S. Northern Command (NORTHCOM) and U.S. Southern Command 
(SOUTHCOM) have been assisting our regional partners through increased 
senior level interactions, subject matter expert exchanges, human 
rights training, mobile training teams, intelligence support, and 
exercises. Our overall military-to-military relations with Mexico have 
expanded considerably as have our relationships with Central American 
nations.
    Question. What changes, if any, would you propose to the DOD's 
current activities in this region?
    Answer. If confirmed, I would closely examine all aspects of our 
activities in the region.
                      anti-access and area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
U.S. military's freedom of movement and action in certain regions.
    Do you believe emerging anti-access and area denial capabilities 
are a concern and, if so, what should the U.S. military be doing now 
and in the next few years to ensure continued access to all 
strategically important areas?
    Answer. The proliferation of anti-access and area denial 
capabilities are of growing concern to the U.S, threatening assured 
access and our freedom of maneuver on land, sea, air, and space. They 
also potentially inhibit global commerce by controlling passage through 
regional chokepoints. If confirmed, I will focus on developing joint 
capabilities to counter these threats while working with our allies and 
partners to deter those who would attempt to deny access to the global 
commons.
                       interagency collaboration
    Question. What do you believe are the most important lessons 
learned from the collaborative interagency efforts in Afghanistan, 
Iraq, and elsewhere?
    Answer. Among other lessons, it seems clear to me that we have 
learned that countering insurgent and terrorist threats demands the 
integration of all instruments of national power toward a common 
purpose.
    Question. How do you believe these efforts can be improved?
    Answer. If confirmed, I will pursue opportunities for early and 
regular interagency engagement to foster enduring partnerships and to 
develop the planning, training, and education necessary for complex 
operations. We should seek new opportunities to collaborate and 
identify common mission tasks and related core training objectives. We 
should seek opportunities to leverage DOD joint training venues and 
resources to build capacities that improve our ability to work 
together.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
counterinsurgency and counterterrorism operations?
    Answer. As part of the recurring revision of joint doctrine, there 
is a direct link to joint lessons learned and best practices. If 
confirmed, I will continue to invest in the ability of our joint force 
to learn and adapt.
    Question. Section 944 of the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 (P.L. 111-383) required the 
Secretary of Defense and the CJCS to submit a report on the 
organizational structures of the headquarters of the geographic 
combatant commands (GCCs). DOD's report, dated June 2011, highlights 
the role of ``interagency'' (i.e., non-DOD, non-intelligence community) 
representatives at each of the GCCs. Stronger and more effective 
interagency integration was a central theme in the establishment of 
U.S. Africa Command and has apparently also informed re-organizations 
at U.S. Southern Command and other GCCs. Yet a number of observers have 
suggested that there is still room for improvement in both the nature 
and extent of interagency integration at the regional level.
    In your view, what is the importance, if any, of interagency 
integration to the ability of DOD's GCCs to execute their missions?
    Answer. Interagency integration is critical to the ability of the 
COCOMs to execute their missions. It enables the U.S. Government to 
build international support, conserve resources, and conduct coherent 
operations that efficiently achieve shared national and international 
goals.
    Question. If confirmed, how would you envision the appropriate 
roles of ``interagency'' representatives at GCCs?
    Answer. It is my understanding that the Executive Branch's 
Interagency Process of national security policy development and 
implementation integrates all aspects of U.S. national security in a 
whole-of-government approach to advance our national security 
interests. If confirmed, I will continue to advocate the roles of 
interagency representatives at the COCOMs in a similar fashion.
                       responsibility to protect
    Question. The U.S. Government has recognized the ``responsibility 
to protect'' (R2P)--that is, the responsibility of the international 
community to use appropriate means to help protect populations from 
genocide, war crimes, ethnic cleansing and crimes against humanity, by 
encouraging states to protect their own populations, by helping states 
build the capacity to do so, and by acting directly should national 
authorities fail to provide such protection. In its 2010 QDR, DOD names 
``preventing human suffering due to mass atrocities'' as one of a long 
list of potential contingencies that DOD might be called on to address. 
DOD has begun to explore some of the implications of R2P, by 
considering ``mass atrocity prevention and response operations''.
    In your view, how high a priority should the ``responsibility to 
protect'' be for the U.S. Government as a whole?
    Answer. Maintaining the will and the ability of the United States 
to prevent human suffering is not only a moral imperative but also an 
important means to promote our values and increase our influence around 
the globe. This doesn't seem to me to be an issue of prioritization. A 
well trained and well led Joint Force can accomplish this mission if 
called upon to do so.
    Question. In your view, what should be the role of DOD, if any, in 
fulfilling the responsibility to protect?
    Answer. Given our global reach and organizational capabilities, DOD 
can play a role in responding to humanitarian disasters including mass 
atrocities. DOD has played an effective role in support of the efforts 
of the State Department, USAID, and other agencies to prevent mass 
atrocities from occurring.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces and enablers that directly support their 
operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. The current growth of 3 to 5 percent in special operations 
personnel is appropriate. If confirmed, I will examine if additional 
growth of Special Forces is needed.
    Question. In your view, how can the DOD increase the size of 
Special Operations Forces while also maintaining the rigorous 
recruiting, selection, and training standards for special operators?
    Answer. Although SOF has nearly doubled since September 11, 
recruitment, assessment, selection, and training standards have not 
been altered or lowered.
    Question. Do you believe any modifications to U.S. Special 
Operations Command's (SOCOM) title 10, U.S.C., missions are 
appropriate? If so, what modifications would you suggest?
    Answer. In my judgment, no modifications are required at this time. 
If confirmed, I remain open to issues and ideas that might suggest 
modifications should be considered.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The Commander, SOCOM, continues to emphasize the importance 
of the indirect SOF mission profiles and insures that SOF trains to 
these mission profiles. It is my understanding that we have grown our 
SOF Civil Affairs and Military Information Support forces to insure we 
have extra capacity to conduct indirect operations. If confirmed, I 
will work with our SOF commanders to ensure that an appropriate balance 
is maintained.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces and enablers that directly support their 
operations.
    Answer. The Commander of SOCOM has described the ``non-
availability'' of enabling capabilities as SOCOM's ``most vexing issue 
in the operational environment''. The 2010 QDR sought to balance 
previously mandated growth in Special Operations Forces with additional 
enabling capabilities.
    Question. What do you believe are the greatest shortages in 
enabling capabilities facing Special Operations Forces?
    Answer. Rotary wing aircraft is the single most significant 
shortage, and we are taking steps to address it. If confirmed, I will 
work with our SOF commanders to identify and resolve other critical 
shortfalls.
    Question. Do you believe additional enabling capabilities, beyond 
those mandated by the QDR, are required to support Special Operations 
Forces?
    Answer. It is my understanding that the Services and SOCOM are 
increasing enabling capabilities as mandated by the QDR. The Force 
Sufficiency Assessment should inform our senior leaders in deciding 
whether more enabling capabilities are needed.
    Question. Do you believe the process for Special Operations Forces 
to request enabling capabilities from the Services, when required, 
should be formalized? If so, how?
    Answer. This process is formalized in the Global Force Management 
Board Force Allocation process. The SOCOM Commander and I are in 
discussion about adapting the process for the Army based on the lessons 
of the past 10 years. If confirmed, I will closely monitor these 
processes to ensure SOF requirements for critical enabling capabilities 
are being addressed.
    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of Special 
Operations Forces. One proposal would modify section 167 of title 10, 
U.S.C., to change the role of the SOCOM Commander from ``monitoring'' 
the readiness of special operations personnel to ``coordinating'' with 
the Services on personnel and manpower management policies that 
directly affect Special Operations Forces.
    What is your view of this proposal?
    Answer. If confirmed, I will closely examine this proposal; 
however, it is my judgment that the law does not need to change at this 
time. The recently implemented DOD Instruction 5100.01 requires the 
Services to coordinate their personnel policies and plans with SOCOM. 
The ``coordination'' policy will provide SOCOM more visibility into 
personnel policy changes and initiatives.
                          combating terrorism
    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked threats 
``that continue to emerge from beyond its core safe haven in South 
Asia''.
    How do you view the Department's role under the new National 
Strategy for Counterterrorism?
    Answer. Elements: antiterrorism, or defensive measures; 
counterterrorism, or offensive actions; and consequence management, or 
measures to recover from terrorist attacks. Each of these components of 
combating terrorism has its own policies and strategies, developed in 
close coordination with interagency partners. DOD plays a significant 
role within the government-wide global fight against al Qaeda and its 
affiliates primarily through partner nation capacity-building and 
enabling efforts, targeted counterterrorism operations, and countering 
violent extremist messaging.
    Question. What do you believe is the appropriate role for the 
Department in countering threats from al Qaeda and affiliated groups 
outside of South Asia?
    Answer. In my judgment, DOD's primary role is to pursue the 
ultimate defeat of al Qaeda (AQ) and its affiliates as part of a whole-
of-government counterterrorism approach. We accomplish this through 
security force assistance, building strong and enduring partnerships, 
and when directed, conducting targeted counterterrorism operations in 
order to eliminate imminent threats to the United States and U.S. 
interests. We also support other efforts led by interagency partners 
who focus on the development of better governance and supplying basic 
needs thereby reducing the underlying causes that enable AQ to recruit 
from vulnerable populations.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. It's my personal experience that the level of interagency 
coordination that occurs in the global counterterrorism (CT) fight is 
greater than it has ever been. But that does not mean we can rest in 
continually improving our coordinated efforts to bring the full weight 
of our national power to bear in the defense of our interests. If 
confirmed, I will work to ensure we collectively put forth the most 
effective approach to combat terrorism.
    Question. What do you view as the role of the Department in 
countering al Qaeda and affiliated groups in cyberspace?
    Answer. The Department acts in support of the Nation's strategic 
objective to disrupt, dismantle, and defeat al Qaeda (AQ) and its 
affiliates. In cyberspace, this includes directing DOD information 
networks operations, planning against designated cyberspace threats, 
and executing cyberspace operations as directed. DOD also employs cyber 
defense measures to prevent intrusions and defeat adversary (including 
AQ) activities on DOD networks and systems.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Combatant commanders have repeatedly confirmed section 1208 
as a key tool in this ongoing fight. The ability for Special Operations 
Forces to leverage willing partners who possess access to areas, 
people, and information that are denied to our forces is critical to 
tactical and strategic success. We have been able to respond quickly to 
global challenges due to this authority while maintaining the 
appropriate civilian oversight, including Secretary of Defense approval 
and congressional notification. The Department is appreciative of 
Congress's continued support for this authority and if confirmed, I 
will continue to keep you informed through our annual report and 
briefings.
  capabilities of special operations forces and general purpose forces
    Question. The 2010 QDR called for increased counterinsurgency, 
counterterrorism, and security force assistance capabilities within the 
general purpose forces.
    What is your understanding and assessment of the QDR's guidance 
with regard to the mix of responsibilities assigned to general purpose 
and Special Operations Forces, particularly with respect to security 
force assistance and building partner military capabilities?
    Answer. The 2010 QDR emphasized expanding general purpose forces' 
capabilities and capacity for these missions. Our general purpose 
forces have always performed some security force assistance and built 
partner capacity; however, this strategy increases that emphasis and 
expands the range of missions. This approach is also consistent with 
the 2010 QDR emphasis on allies and partners.
    Question. Do you believe that our general purpose forces need to 
become more like Special Operations Forces in mission areas that are 
critical to countering violent extremists?
    Answer. Our conventional forces should continue to become more 
versatile, adopting some special capabilities, particularly in areas 
such as cultural awareness, linguistic capabilities, information 
operations, and in the ability to operate in a decentralized, widely 
dispersed environment. Doing so will improve general purpose force 
capabilities across mission areas including counterinsurgency and 
stability operations.
    Question. In your view, what mission areas, if any, should be 
reserved for Special Operations Forces only?
    Answer. In my judgment, Special Operations Forces provide unique 
abilities and are an essential component of our U.S. Armed Forces. In a 
very unpredictable security environment, they must remain versatile as 
well. Unconventional warfare, counterterrorism, special reconnaissance, 
foreign internal defense, and counter-proliferation of WMD are some of 
the unique mission areas in which they excel and provide an essential 
capability.
               dod's cooperative threat reduction program
    Question. The Cooperative Threat Reduction (CTR) program, which is 
focused historically on accounting for, securing, or eliminating Cold 
War era WMD and materials in the states of the former Soviet Union, has 
started to expand its focus to other countries. With this expansion the 
CTR program is widening its focus to biological weapons and 
capabilities including biological surveillance and early warning; and 
encouraging development of capabilities to reduce proliferation 
threats.
    Do you think the CTR program is well coordinated among the U.S. 
Government agencies that engage in threat reduction efforts, e.g., DOD, 
the Department of Energy, and the State Department?
    Answer. My understanding is that effective interagency coordination 
has been a defining characteristic of the CTR program since its 
inception, which has directly contributed to the program's success. We 
should continue to evaluate the program's objectives in alignment with 
our national security interests. If confirmed, I will evaluate whether 
interagency coordination can be improved.
    Question. If confirmed, would you make any changes in the current 
programs or goals of the CTR program?
    Answer. The CTR program has contributed significantly to reducing 
residual Cold War stockpiles of WMD and associated materials within the 
states of the former Soviet Union. However, such threats continue to 
exist, both within the Eurasia region and throughout the world. I 
support the continued expansion of this program to other regions of the 
world in order to build global partnerships. Where governments are 
unable to mitigate this threat on their own, we should consider working 
with them to secure all WMD and related materials.
                          prompt global strike
    Question. The 2010 QDR concluded that the United States will 
continue to experiment with prompt global strike prototypes. There has 
been no decision to field a prompt global strike capability as the 
effort is early in the technology and testing phase.
    In your view, what is the role for a Conventional Prompt Global 
Strike (CPGS) capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. There has been no decision to field a CPGS capability; 
however, the concept has merit in a variety of scenarios. If confirmed, 
I will closely examine CPGS in order to provide recommendations on its 
future development.
    Question. What approach to implementation of this capability would 
you expect to pursue if confirmed?
    Answer. If confirmed, I will support continued research, 
development, test, and evaluation of critical technologies. I will also 
assess the formal establishment of follow-on Service acquisition 
programs and a concurrent effort to improve the Nation's intelligence, 
surveillance, and reconnaissance (ISR) capabilities necessary to 
support a future CPGS capability.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. As with other weapons systems, effective employment of CPGS 
weapons depends on the collection, analysis, and dissemination of 
timely and accurate intelligence information. Currently, DOD is 
conducting assessments of the adequacy of present and future ISR to 
support strikes using a CPGS weapon system. If confirmed, I will use 
these assessments to inform the performance requirements for CPGS, just 
as assessed CPGS performance will shape future ISR requirements.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges, if any, with respect to assuring the safety, security, and 
reliability of the stockpile?
    Answer. To sustain a safe, secure, and effective stockpile today, 
we must prudently manage our nuclear stockpile and related LEPs, while 
cultivating the nuclear infrastructure, expert workforce, and 
leadership required to sustain it in the future. If confirmed, I will 
consider the full range of LEP approaches to include refurbishment of 
existing warheads, reuse of nuclear components from different warheads, 
and replacement of nuclear components.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing? What 
considerations would guide your recommendation in this regard?
    Answer. Our current stockpile stewardship is assessed as effective. 
Today's stockpile has been certified and does not require further 
nuclear testing. However, the stockpile is aging. I understand that 
there are challenges in identifying and remedying the effects of aging 
on the stockpile. If confirmed, I am committed to working with the 
Department of Energy to maintain the critical skills, capabilities, and 
infrastructure needed to ensure the safety, reliability, and security 
of the stockpile within a constrained budget environment.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Yes. The administration's 1251 report details the roadmap 
for ensuring the future safety, security, and reliability of the 
nuclear stockpile and associated delivery platforms as well as for 
modernizing the nuclear weapons complex. It demonstrates a strong 
commitment to the nuclear mission and is an important signal that the 
U.S. deterrent remains strong.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
treaty limits in the deployed stockpile of nuclear weapons?
    Answer. The 2010 NPR Report stated that the United States would 
pursue additional reductions in strategic and non-strategic nuclear 
weapons with Russia, and a key aspect of implementing the 2010 NPR is 
conducting follow-on analysis. The Senate also noted in its resolution 
of advice and consent to ratification of the New START treaty that we 
must seek to initiate negotiations with Russia on a new arms control 
agreement by February 2012. The analysis of further reductions would 
inform my judgment, if confirmed, on whether it is prudent to reduce 
nuclear weapons below New START treaty limits.
    Question. If confirmed, would you recommend any changes to the non-
deployed hedge stockpile of nuclear weapons?
    Answer. As detailed in the administration's section 1251 report, 
the National Nuclear Security Administration is pursuing a multi-year 
program to build critical plutonium and uranium facilities that will 
give the Nuclear Weapons Enterprise the ability to correct identified 
stockpile deficiencies. Without these infrastructure improvements and 
the ability to correct stockpile deficiencies and failures, careful 
analysis would be required to enable or accept reductions in the 
strategic hedge. If confirmed, I would assess this analysis before 
recommending any changes to the non-deployed hedge stockpile.
                       law of the sea convention
    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the U.S. Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea convention?
    Answer. I support the United States becoming party to the Law of 
the Sea Convention. This Convention provides U.S. Armed Forces the best 
possible means to maximize its rights to move freely on, through, and 
over the world's oceans. I also think that joining the Convention will 
allow the United States to strengthen our military's ability to conduct 
operations.
    Question. How would being a party to the Law of the Sea convention 
help or hinder the United States' security posture?
    Answer. In my judgment, accession to the Convention would more 
permanently secure our Nation's global mobility rights, which are 
critical to America's ongoing and future national security operations 
and humanitarian assistance missions.
     mobilization and demobilization of national guard and reserves
    Question. In support of the current ongoing conflicts, the National 
Guard and Reserves have experienced their largest and most sustained 
employment since World War II. Numerous problems have arisen over time 
in the planning and procedures for mobilization and demobilization, 
e.g., inadequate health screening and medical response to service-
connected injuries or illnesses, antiquated pay systems, limited 
transition assistance programs upon demobilization, and inefficient 
policies regarding members of the Individual Ready Reserve. Reserve 
Force management policies and systems have been characterized in the 
past as ``inefficient and rigid'' and readiness levels have been 
adversely affected by equipment shortages, cross-leveling, and reset 
policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. At this point, I can speak only for the Army Reserve 
component, but we have made significant progress in this area and 
eliminated or improved many ``inefficient and rigid'' procedures. In 
doing so, we have been able to better sustain the vital employment of 
the National Guard and Reserves. Some of the direct results of these 
improvements are: increased deployment predictability, earlier 
mobilization notifications, stabilized dwell times, and reintegration 
and transition services throughout the deployment cycle. Deliberate 
investments and policy commitments to this Operational Reserve have 
resulted in the best trained, best equipped, and best led Reserve 
component in our history. There remains room for improvement, such as 
achieving a single, standardized pay system and providing first-rate 
medical care before and after deployment. If confirmed, I look forward 
to working with Congress on the shared goal of providing our Total 
Force the most capable and best cared for military force in the world.
    Question. What do you consider to be the most significant enduring 
changes to the enabling of an operational Reserve aimed at ensuring 
Reserve component readiness for future mobilization requirements?
    Answer. The future fiscal environment will present significant 
challenges as we seek to program sufficient resources to preserve the 
readiness gains of the Reserve component while continuing to use them 
on a predictable and periodic basis to satisfy our national security 
requirements. Meeting this challenge will require the commitment of 
both the Department and Congress.
    Question. Do you believe the Reserve components should be 
Operational or Strategic Reserves?
    Answer. The reality is that the Reserve components of our Armed 
Forces have transformed from an exclusively Strategic Reserve to one 
that also provides operational, full-spectrum capabilities to the 
Nation. Repeated combat deployments, as well as peacekeeping, 
humanitarian relief and Homeland defense missions, have produced a 
Reserve component far more operationally capable and experienced than 
at any time in our Nation's history. Returning to a strictly Strategic 
Reserve role for the Reserve component would not be in the Nation's 
best interest.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves to 
further enhance their ability to perform various national security 
missions?
    Answer. Over the past 10 years, the Department has primarily relied 
on the provisions of the Presidential Declaration of National Emergency 
to gain involuntary access to the Reserve components. If confirmed, I 
think it would be prudent to explore more effective and potentially 
more decentralized authorities to involuntarily access and mobilize 
Reserve and National Guard Forces. To that end, I understand DOD is 
working with the Armed Service Committees to include new mobilization 
authorities in the 2012 National Defense Authorization Act. These 
authorities would allow Service Secretaries limited mobilization 
authority, of up to 365 days, for non-named contingencies. Such a 
change would allow us to better support the requirements of the Joint 
Force Commanders. Additionally, the recent agreement between DOD and 
the Governors, which will allow Reserve and National Guard Forces to 
respond to a domestic emergency or disaster when requested by a 
Governor, is a positive step forward.
              medical and dental readiness of the reserves
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. Medical and dental readiness of Reserve component personnel 
remains an issue of significant concern. If confirmed, I will continue 
to support the Reserve Health Readiness Program (RHRP), which provides 
Periodic Health Assessment (PHA), Post-Deployment Health Reassessment, 
and other Individual Medical Readiness services--both medical and 
dental--to all Reserve component forces. In addition to these programs, 
command emphasis on meeting standards and the integration of RHRP data 
with our existing readiness systems will improve both reporting 
accuracy and overall readiness. If confirmed, I will work to improve 
Reserve readiness across the Department.
    Question. How would you improve upon the Department's ability to 
maintain a healthy and fit Reserve component?
    Answer. Improving the Department's ability to maintain a healthy 
and fit Reserve component requires senior leadership involvement and 
individual accountability. Strong command emphasis must be in place to 
produce necessary improvements. If confirmed, I will work with the 
Defense Safety Oversight Council and the Medical and Personnel 
Executive Steering Committee to advance health and safety promotion and 
injury/illness prevention.
                          recruiting standards
    Question. Recruiting highly qualified individuals for military 
service during wartime in a cost-constrained environment presents 
unique challenges. The Army has been criticized in past years for 
relaxing enlistment standards in tough recruiting environments with 
respect to factors such as age, intelligence, weight and physical 
fitness standards, citizenship status, tattoos, and past criminal 
misconduct. On the other hand, as the Deputy Chief of Staff of the 
Army, G-1, testified earlier this year that less than 25 percent of all 
17-24 year olds are eligible to enlist, primarily due to physical and 
educational requirements.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. From my perspective as CSA, the current enlistment 
qualification standards are well-defined and have stood the test of 
time. They are driven by the need to provide the Services with men and 
women who are prepared to adapt to the rigors of military life and meet 
performance requirements. To that end, the Services carefully screen 
applicants who come from all walks of life. The traditional high school 
diploma remains the best single predictor of attrition. That said, some 
standards may change over time. As an example, I personally believe 
that the enlistment process should include an open-source social media 
screening and have asked the Department of the Army to consider whether 
we have the necessary authorities and whether it is feasible to do so.
    Question. In your view, is there any way to increase the pool of 
eligible enlistees without sacrificing quality?
    Answer. Again, speaking from the Army perspective, we are not 
currently challenged by recruiting and retention. There is an adequate 
pool of eligible enlistees. However, we are alert to challenges other 
than quality such as ensuring a reasonable geographic diversity of 
recruits so that we remain reflective of American society. If 
confirmed, I will work with the Services to continually find new ways 
to improve recruitment.
    Question. Are there any enlistment requirements or standards that 
are overly restrictive or which do not directly correlate to successful 
military service?
    Answer. My current assessment is that our military enlistment 
standards are not overly restrictive. The Services employ fitness, 
adaptability, and aptitude standards which correlate to the physical, 
disciplined, regulated lifestyle and cognitive demands needed to 
succeed in the Armed Forces. If confirmed, I will continue to evaluate 
this issue closely.
    Question. Current recruiting policies define three tiers of high 
school diploma credentials, aimed at minimizing attrition during the 
initial enlistment term. At the height of OIF, the Army was 
particularly forward-leaning in advocating for more GED holders and 
non-traditional high school graduates to meet recruiting goals. Pending 
legislative proposals would treat all graduates of State-recognized 
programs equally for recruiting eligibility.
    Do you believe the current ``tier'' system for evaluating potential 
enlistees has outlived its usefulness in today's All-Volunteer Force?
    Answer. The Services track the attrition rates of military recruits 
by a variety of credential types. Traditional high school diploma 
graduates have lower rates of attrition than any other type of 
credential holder. I am aware of the proposals that would classify 
graduates of online public schools as ``Tier I'' candidates for 
military enrollment, and if confirmed, I will give it careful 
consideration.
    Question. What do you consider to be the most important indicators 
of future successful Active Duty military service in a new recruit?
    Answer. The fitness, adaptability, and aptitude standards which the 
Services employ have historically correlated to the physical, 
disciplined, regulated lifestyle and cognitive demands needed to 
succeed in the Armed Forces. Young men and women who are motivated to 
serve their country and desire to excel will have that opportunity 
through military service.
                       homosexual conduct policy
    Question. The ``Don't Ask, Don't Tell Repeal Act of 2010'', enacted 
on December 22, 2010, provides for the repeal of the current DOD policy 
concerning homosexuality in the Armed Forces, to be effective 60 days 
after the Secretary of Defense has received DOD's comprehensive review 
on the implementation of such repeal, and the President, Secretary, and 
CJCS certify to the congressional defense committees that they have 
considered the report and proposed plan of action, that DOD has 
prepared the necessary policies and regulations to exercise the 
discretion provided by such repeal, and that implementation of such 
policies and regulations is consistent with the standards of military 
readiness and effectiveness, unit cohesion, and military recruiting and 
retention.
    What effect do you anticipate the repeal will have on readiness and 
discipline in the Armed Forces?
    Answer. We have the policies and regulations needed for 
implementation, and they are consistent with standards of military 
readiness, military effectiveness, unit cohesion, and recruiting and 
retention. I have considered both objective and subjective measures, 
and it is my judgment that with our training and preparation nearly 
complete, we are now ready to affect repeal while sustaining military 
effectiveness.
           protection of u.s. forces against internal threats
    Question. On November 5, 2009, a gunman opened fire at the Soldier 
Readiness Center at Fort Hood, Texas, killing 13 people and wounding or 
injuring 43 others. A DOD review of the attack released in January 2010 
concluded that the Department was poorly prepared to defend against 
internal threats, including radicalization among military personnel.
    What, in your view, are the lessons learned from the tragedy at 
Fort Hood?
    Answer. Fort Hood revealed areas that require corrective action. 
Specific lessons include: (1) identifying and monitoring potential 
threats through gathering, analyzing, and acting on information and 
intelligence; (2) providing time-critical information to the right 
people through the sharing and merging of key indicators; and (3) 
planning for and responding to incidents through immediate emergency 
response as well as the long-term care for victims of attacks and their 
families.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. As a result of the tragedy at Fort Hood, the Department 
will strengthen its policies, programs, and procedures to mitigate 
internal threats, ensure force protection, enable emergency response, 
and provide care for victims and families. If confirmed, I will work 
to: (1) address workplace violence; (2) ensure commander and supervisor 
access to appropriate information in personnel records; (3) improve 
information sharing with partner agencies and among installations; (4) 
expand installations' emergency response capabilities; (5) integrate 
force protection policy, and clarifying force protection roles and 
responsibilities; and (6) ensure that we provide top quality health 
care to both our servicemembers and our healthcare providers.
                          religious guidelines
    Question. The Independent Review Related to the Tragedy at Fort 
Hood observed that ``DOD policy regarding religious accommodation lacks 
the clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization.'' Recommendation 2.7 of the Final 
Recommendations urged the Department to update policy to clarify 
guidelines for religious accommodation and Recommendation 2.8 urged the 
Department to task the Defense Science Board to ``undertake a multi-
disciplinary study to identify behavioral indicators of violence and 
self-radicalization . . . ''
    What is your view of these recommendations?
    Answer. I understand the Independent Review Related to the Tragedy 
at Fort Hood issued recommendations based on their findings, and that 
the Fort Hood Follow-on Review prepared an implementation plan in 
response to these. If confirmed, I will continue to monitor 
implementation and track the progress being made to protect our 
servicemembers from harm while ensuring DOD policies, programs, and 
procedures appropriately accommodate the free exercise of religion.
    Question. What is your understanding and assessment of current 
policies and programs of DOD regarding religious practices in the 
military?
    Answer. The right of servicemembers to observe their respective 
religious faiths has always been highly valued by all of the Services. 
It is my current judgment that our policies and programs reflect this 
value and provide commanders with adequate flexibility to balance 
accommodation for religious beliefs and maintain good order and 
discipline. If confirmed, I will remain open to issues and ideas that 
might suggest any change in policy or programs.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. Yes, I believe our policies appropriately accommodate the 
free exercise of religion.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes, I think existing policies and practices strike the 
proper balance. I admire our military chaplains for their work 
ministering amidst the pluralistic environment of the military. Even as 
chaplains express their faith, they and their commanders also are asked 
to be as inclusive as possible when ministering to an interfaith group. 
Our chaplains can voluntarily participate, or not participate, in 
settings which conflict with their faith traditions while remaining 
mindful of the requirement for inclusiveness. If confirmed, I will 
remain open to issues and ideas that might suggest improvement to 
policy and practices.
    Question. If confirmed, will you work to ensure that a scientific 
fact-based approach to understanding radicalization will drive the 
Department's relevant policies on this topic?
    Answer. If confirmed, I will ensure that our force is protected by 
a reliance on scientific, fact-based approach to countering 
radicalization. I understand Defense Science Board study on violent 
radicalization has been commissioned by DOD and that there are plans to 
commission two additional clinical studies focused on identifying any 
potential indicators of violent behavior in military personnel. I 
believe the results of these studies can help inform future policies 
and programs on radicalization.
    Question. Current policy in the Department gives discretion to 
military leaders to decide whether requests to waive uniform and 
appearance standards should be granted based on religious beliefs. The 
Department has submitted a legislative proposal that would clearly 
exempt the armed services from the requirements of the Religious 
Freedom Restoration Act (RFRA).
    What is your view of the manner in which DOD policies accommodate 
religious practices that require adherents to wear particular articles 
of faith?
    Answer. I understand the important and delicate balance that we 
must strike between accommodating religious practices that require 
adherents to wear particular articles of faith and maintaining the 
military's uniform grooming and appearance standards. My understanding 
is that wearing particular articles of faith are permissible so long as 
the articles are neat and conservative, do not negatively impact the 
readiness, and good order or discipline of the unit and the mission is 
not jeopardized. If confirmed, I am committed to ensuring an 
appropriate balance between maintaining the military's uniform grooming 
and appearance standards and accommodating particular articles of 
faith.
    Question. Do you believe that the Armed Forces need to be exempted 
from the strictures of RFRA? If so, why?
    Answer. Yes. It is my understanding that the RFRA has the effect of 
ensuring that a ``rational basis'' standard in the specific area of 
military grooming and appearance is applied by the courts instead of by 
the Armed Forces. The DOD legislative proposal will restore a more 
appropriate balance between maintaining the military's uniform grooming 
and appearance standards and approving requested religious 
accommodations.
                      muslims in the u.s. military
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. First and foremost, the events related to the attack at 
Fort Hood are a tragedy for all involved. While it is possible that 
such a tragic act could spur harassment and violence as a means of 
retaliation, I have confidence in the professionalism of our men and 
women in the Armed Forces. Furthermore, our military leaders and 
supervisors at all levels take precautions to prevent such occurrences 
while maintaining good order and discipline.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. If confirmed, I would focus on sustaining the 
professionalism of our All-Volunteer Force. I would also advocate open 
communications, decisive action on the part of military leaders and 
supervisors, and command emphasis on our standards for maintaining good 
order and discipline. It's worth noting that the vast majority of our 
force has lived and worked among Muslims for the past 10 years and is 
very culturally aware.
                 sexual assault prevention and response
    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assault, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
combat areas of operation and at home stations are still being 
reported. Victims and their advocates claim that they are victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate treatment for the victim. They assert that their command 
fails to respond appropriately with basic medical services and with an 
adequate investigation of their allegations followed by a failure to 
hold assailants accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential or restricted reporting, to be 
effective?
    Answer. I do, but am also acutely aware that we must continue to do 
more. Current policies and programs designed to address sexual assault 
have allowed the Department to both care for victims and hold offenders 
accountable. However, until we have zero sexual assaults within our 
forces, we should continue to look for ways to improve the system. If 
confirmed, I will continue to engage and emphasize the importance of 
addressing sexual assault, of caring for victims, and of holding 
offenders accountable.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedure has been implemented?
    Answer. Getting victims to trust the system and come forward can be 
challenging. Confidential reporting, or restricted reporting, allows a 
victim to come forward and have their personal needs met without fear 
that may be associated with a criminal investigation. I will remain 
alert and receptive to any reported flaws in the program and take 
prompt action to improve the system.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults by or against contractor personnel?
    Answer. I am very concerned about reports of sexual assault against 
anyone in any location. We will not tolerate this behavior. The 
services have procedures in place to address the challenges of 
preventing and responding to sexual assaults in an operational 
environment to include working with host governments and our 
international partners. The Sexual Assault Prevention and Response 
(SAPR) Program requires larger units, such as brigades, to appoint and 
train a deployable sexual assault response coordinator and every 
battalion or squadron to appoint and train unit victim advocates. Until 
no sexual assaults occur within our Armed Forces, we will continue to 
look for ways to improve prevention and response.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. DOD is committed to addressing sexual assault in a 
comprehensive, integrated and uniform manner. All the Services have 
been directed to establish guidelines for a 24-hour, 7 day a week 
sexual assault response capability for all locations, including 
deployed areas. Our investigators and first responders are well 
trained. All services recently enhanced their resources for 
investigating and prosecuting sexual assault cases.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. The Services have the willingness and ability to hold 
assailants accountable. Moreover, senior leaders are very aware of the 
importance of establishing a positive organizational climate. Sexual 
assault is personally destructive for the victim while also undermining 
organizational climate, unit discipline and morale. When sexual 
assaults do occur, leaders must ensure victims feel free to report 
incidents without fear of reprisal, while appropriately applying 
available resources to investigate and punish assailants.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. DOD has a zero tolerance policy for sexual assault, and we 
have assigned a General/Flag Officer with operational experience to 
provide direct oversight of the Sexual Assault Prevention and Response 
Program office. If confirmed, I will constantly evaluate policies to 
ensure the safety, dignity, and well being of all members of the Armed 
Forces.
                         women in the military
    Question. In recent years, the Navy has opened service on 
submarines to women, the Marine Corps has expanded service 
opportunities for women in intelligence specialties, and the Army is 
currently reviewing its assignment policy for female soldiers. The 
issue of the appropriate role of women in the Armed Forces is a matter 
of continuing interest to Congress and the American public.
    Do you believe additional specialties should be eligible for 
service by women?
    Answer. DOD is currently conducting a comprehensive review of the 
role of women in combat. We are participating in this review, and if 
confirmed, I will continue to monitor combat needs as Services 
recommend expanding combat roles for women and notify Congress 
accordingly as required by statute (10 U.S.C., Sec. 652 and/or 
Sec. 6035). Any decision regarding opening additional specialties for 
service by women will be based on our obligation to maintain a high 
state of mission readiness of our All-Volunteer Force.
    Question. Do you believe any changes are needed or warranted in the 
current assignment policies regarding women?
    Answer. I support the DOD review and welcome the opportunity to 
determine what we've learned in 10 years of combat.
                      rising costs of medical care
    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April, 2009, then Secretary of Defense Gates told an audience at 
Maxwell Air Force Base that ``health care is eating the Department 
alive''. The administration has proposed health care efficiencies to 
save nearly $8.0 billion through 2016.
    Do you agree with the proposed health care efficiencies?
    Answer. As they have been described to me, I believe that the 
proposed health care efficiencies are sensible efforts to control DOD's 
health care costs while maintaining the same level of care. I also 
believe the modest increases in beneficiaries' cost shares are 
reasonable and still compare favorably to private sector healthcare 
plans.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. Before reforms can be initiated, detailed analysis must be 
done. This must include a look at benefit payment structures, 
organizational structure, systems, and policies for the military health 
system. If confirmed, I will assist the Secretary of Defense, as he 
leads the Department's ongoing effort to explore all possibilities to 
control the costs of military health care. I am also an advocate for 
the potential long-term gains available through the promotion of 
healthy life styles and prevention among our beneficiaries to help 
reduce the demand for health services.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. The medical cost growth trend will continue to add pressure 
to the Department's budget the longer it remains unresolved. Our 
uniformed servicemembers make great sacrifices for their Nation and the 
quality of their health care is a critical component to having a fit 
and ready force to accomplish the National Security Strategy. 
Additionally, the generous health benefits we provide to their families 
and retirees are a significant part of the quality of life which allows 
the military to recruit and retain the highest caliber personnel the 
Nation has to offer. If confirmed, I will continue our efforts with 
Congress and DOD to find effective ways to improve the cost-
effectiveness of the Military Health System.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. I'm not in a position to make specific recommendations at 
this time. If confirmed, I will work closely with health care 
leadership in DOD to continue the administration's efforts to examine 
every opportunity to ensure military beneficiaries are provided the 
highest quality care possible while managing cost growth.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel, and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget.
    What actions do you believe can and should be taken, if any, to 
control the rise in personnel costs and entitlement spending?
    Answer. The cost related to personnel and entitlements is an 
increasing portion of DOD's available resources. Our current military 
compensation system is rooted in structures established a generation 
ago. In order to control the rise in costs related to personnel and 
entitlements, it is appropriate to conduct a comprehensive review of 
the military pay and benefits structure to determine where costs can be 
contained. If confirmed, I would coordinate with the Secretary of 
Defense on any review in a manner that supports and sustains the All-
Volunteer Force.
    Question. In your view, can the Department and the Services 
efficiently manage the use of bonuses and special pays to place high 
quality recruits in the right jobs without paying more than the 
Department needs to pay, or can afford to pay, for other elements of 
the force?
    Answer. In my judgment, recruiting and retention bonuses are cost-
effective tools to achieve DOD's personnel strength and experience 
objectives, but we must continually monitor these tools to ensure they 
are being used efficiently as well as effectively. It has been my 
experience that the Services adjust enlisted bonus levels to ensure we 
get the right numbers of personnel in the corresponding specialties. If 
confirmed, I would be open to a review of the utilization and efficacy 
of bonuses as part of any comprehensive review of the military pay and 
benefits structure.
                          military retirement
    Question. The 10th Quadrennial Review of Military Compensation 
proposed a new defined benefit retirement plan that more resembles the 
benefits available under the Federal Employee Retirement System than 
the current military retirement benefit; increasing TRICARE fees for 
retirees; and the adoption of dependent care and flexible spending 
accounts for servicemembers. Secretary Panetta has called for a 
comprehensive review of the military retirement benefit.
    While it is often said that the military retirement benefit helps 
retention after the 10-year point, do you believe it provides any 
significant boost to recruitment? Do 17-18 year olds care when deciding 
to enlist?
    Answer. Surveys show that retirement benefits are often not a 
driving factor to enlist 17-18 year old men and women. I agree with 
Secretary Panetta that it is time to review the military retirement 
system for needed changes and efficiencies that will still encourage 
retention and recruitment.
    Question. How might it be modernized to reflect the needs of a new 
generation of recruits, while easing the long-term retirement cost to 
the Government?
    Answer. There are many proposed alternatives to the current 
military retirement system. I am unable to make recommendations at this 
time, but if confirmed, I will closely study proposals and their impact 
as part of a comprehensive review process.
                systems and support for wounded warriors
    Question. Servicemembers who are wounded or injured performing 
duties in Operations Enduring Freedom, Iraqi Freedom, and New Dawn 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from Active Duty if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Walter Reed Army Medical Center (WRAMC) in 2007 
illustrated, the Services were not prepared to meet the needs of 
significant numbers of returning wounded servicemembers. Despite the 
enactment of legislation and renewed emphasis, many challenges remain, 
including a growing population of servicemembers awaiting disability 
evaluation.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. The Wounded, Ill, and Injured, Senior Oversight Council DOD 
formed in 2007 has provided the necessary consistent focus on these 
issues, and has made excellent progress. DOD, in collaboration with the 
Services and the Department of Veterans Affairs, has been working on 
multiple ways to improve the care, management, and transition of our 
wounded warriors and their families. The Services' Wounded Warrior 
Units and Program oversight offices have made dramatic improvements 
through which individual and family medical, mental, and social-
economical needs are addressed.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. If confirmed, I would continue to build upon the successes 
of the Services' Wounded Warrior Units. By continuing to appropriately 
resource and staff these organizations with high quality personnel we 
can further improve the transition processes and overall well being of 
our wounded warriors. Additionally, we should continue to expand upon 
the research and treatment by continued collaboration between the 
private medical research and healthcare sector and the Centers of 
Excellence which fall under the DCoE (Defense Center of Excellence for 
Psychological Health and Traumatic Brain Injury). These groups are 
making daily strides in providing the best level and quality of care to 
our wounded warriors and their families, and if confirmed, I will 
continue to place the highest priority on these efforts.
    Question. What are the weaknesses that need to be corrected?
    Answer. The Services' have taken great strides to improve care to 
our wounded servicemembers. However, continuous improvement is needed. 
One area to further improve is individual case management when a 
servicemember transitions from the Active Force to DOD retiree or 
eligible veteran status. The key components of this process are the 
implementation of a single electronic health record, which follows the 
servicemember through transition and a single tracking tool for case 
management. If confirmed, I will work to improve collaboration with our 
Department of Veterans Affairs partners to expedite fielding of this 
system. The transition process and tracking for wounded warriors with 
unseen psychological wounds is an area which requires continued 
development as well.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. Yes. For example, if confirmed, I would continue to take 
advantage of generous support the Department has received from the many 
non-profit programs and private organizations who have reached out to 
support our returning veterans. There are hundreds of these 
organizations and programs that have come to the aide of wounded 
warriors and their families to provide for everything from assistive 
devices (wheel chairs, house ramps, et cetera), to conducting research 
on medical treatments, to providing direct economic aid. I would also 
continue the Joint Staff's role in providing the Department with 
evaluation and analysis across the Services in order to share best-
practices and lessons learned.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program, and now an Integrated DES program, has been 
established to improve processing of servicemembers.
    What is your assessment of the need to further streamline and 
improve the integrated DES?
    Answer. It is my belief that the current Integrated Disability 
Evaluation System has made significant progress but needs further 
reform. If confirmed, I would facilitate the Secretary of Defense and 
the Secretary of the Veterans Administration's collaboration via the 
IDES Tiger Team. In order for IDES to reach its full potential, DOD may 
need to closely coordinate with Congress for legislative change. 
Ultimately, this will reduce the total number of warriors in the 
evaluation process, thus reducing the overall cost to the system and 
the burden on our wounded warriors.
    Question. If confirmed, how will you address any need for change, 
particularly the Army's growing population of servicemembers awaiting 
disability evaluation?
    Answer. If confirmed, I will support current IDES reform 
initiatives and, if necessary, assist the Secretary of Defense with 
recommendations to Congress on legislative adjustments to the 
disability rating and compensation system. Additionally, I would 
continue support for the Services Wounded Warrior units, where 
significant improvements are being made to the quality of care for our 
wounded warriors.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services has 
increased in recent years. The Army released a report entitled ``Army 
Health Promotion, Risk Reduction, Suicide Prevention'' in July 2010 
that analyzed the causes of its growing suicide rate and examined 
disturbing trends in drug use, disciplinary offenses, and high risk 
behaviors. In addition, studies conducted by the Army of soldiers and 
marines in theater are showing declines in individual morale and 
increases in mental health strain, especially among those who have 
experienced multiple deployments.
    In your view, what should DOD do to shape policies to help prevent 
suicides both in garrison and in theater and to increase the resiliency 
of all servicemembers and their families, including members of the 
Reserve components?
    Answer. I am very concerned about the suicide rate. Suicide is a 
problem that cuts across the Army family, affecting our servicemembers, 
our Veterans, and their families. If confirmed, I will continue to work 
closely with Congress, our military leaders, Veterans Affairs, and 
Federal and civilian organizations to see that our members' and 
families' psychological health is addressed. DOD has developed an 
action plan to address the 13 foundational and 76 targeted 
recommendations outlined in the 2010 DOD Task Force Report on 
Prevention of Suicide. Resourcing and implementing recommendations set 
forth by the Services will improve resilience in the force in hopes of 
ultimately lowering suicide rates.
    Question. What is your understanding of the action that the Office 
of the Secretary of Defense and the Army are taking in response to the 
July 2010 Army report, and the data in Chapter 3 in particular?
    Answer. Early identification of ``high risk'' behavior and issues 
such as marital problems, substance abuse, and behavior difficulties 
are at the forefront of the Services' proactive interventions. This has 
allowed leaders to intervene on the leading edge. We are seeing 
increased unit resilience in soldiers and marines, and though it is 
still a factor the stigma regarding mental health care is dissipating. 
The Army and the Marine Corps continue to evaluate and modify services 
related to health promotion, risk reduction, and suicide prevention 
including increased behavioral health providers at the brigade level in 
Active and Reserve units, allowing engaged leaders to improve education 
and awareness of behavioral health issues. In addition, the Army has 
required increased behavioral health screening before and after 
deployments; improved training for chaplains and suicide prevention 
coordinators; and for primary care medical providers to identify and 
respond to behavioral health issues.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. As an institution, DOD must continue to directly address 
mental health issues because they directly affect the wellness of our 
force. There are three key areas that must be addressed to ensure 
sufficient resources are available to members and their families. 
First, we must continue to reduce stigma and ensure that members are 
comfortable seeking treatment and using the resources that are 
available. Second, we must continue to develop effective mental health 
therapies that are relevant and appropriate for the experiences of our 
forces and their families. Third, the necessary resources must be 
available to include trained mental health professionals.
                        military quality of life
    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care and morale, welfare, and 
recreation services.
    If confirmed, what further enhancements to military quality of life 
would you consider a priority, and how do you envision working with the 
Services, combatant commanders, family advocacy groups, and Congress to 
achieve them?
    Answer. Quality of life programs are important to the wellness of 
the total force. If confirmed, I will encourage continued improvements 
and effective management in key areas such as access to counseling, 
fitness opportunities, child care support, and spouse employment 
opportunities. I look forward to working with advocacy groups and 
Congress to efficiently close gaps and reduce overlaps in programs and 
to communicate effectively with families to ensure that they know how 
to access available support when they need it.
                             family support
    Question. Military members and their families in both the active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. I share the common judgment that family resilience is tied 
to family readiness. We must ensure military families are well prepared 
to meet the challenges that come with deployment and service. Through 
focusing on the psychological, social, financial, and educational well-
being of military families, we can continue to build family resilience. 
Great strides have been made in improving access to resources for 
families through such programs as Strong Bonds, MilitaryOne Source and 
the Yellow Ribbon Program. If confirmed, I will continue to focus on 
these and other initiatives to promote family readiness.
    Question. If confirmed, how would you ensure that family readiness 
needs are addressed and adequately resourced?
    Answer. If confirmed, I look forward to working with the Services, 
the Department, and other agencies on improving resources for benchmark 
Service programs as well as access to other programs such as 
MilitaryOne Source and the Yellow Ribbon Program. I believe it is DOD's 
responsibility to ensure that appropriate resources, including those in 
health care, education, and employment, are available to families at 
the level they need wherever they may be located.
    Question. How would you address these family readiness needs in 
light of global rebasing, base realignment and closure, deployments, 
and future reductions in end strength?
    Answer. If confirmed, I will monitor the changing needs of our 
military families closely to ensure that all available resources are 
available to families at the required level and location. In order to 
accurately address the needs of these families in a changing 
environment, it is critical that we build community partnerships 
between all Federal agencies and with local governments, businesses, 
and non-profit organizations that are stakeholders in addressing the 
stressful aspects of military life. I also believe we need to encourage 
continued progress among individual states' legislative initiatives to 
ease recognition of professional accreditation of family members and 
support for various school programs transferring children.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. We have a duty to ensure every family has access to quality 
resources, regardless of component or location. These resources should 
provide information, access, referrals, and outreach to all military 
members and their families. This needs to be underwritten by a 
coordinated, community-based network of care encompassing DOD, VA, 
State, local, non-profit and private providers. It is my understanding 
that DOD's Yellow Ribbon Program has been successful in addressing 
these needs. If confirmed, I will assess this program and others to 
ensure it is properly focused and funded to address the issues faced by 
Active Duty, Guard, and Reserve members and their families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I would encourage the implementation of 
flexible family support programs that meet the needs of our members and 
their families whether they live on, near, or far from military 
installations. I understand there are many excellent State programs 
that support members and their families. If confirmed, I would like to 
explore these further and see if they can be expanded across all 
States.
    Question. If confirmed, in your view, are the recent increases in 
military family support (which have risen to $8.3 billion in the fiscal 
year 2012 President's budget) sustainable in future years?
    Answer. We will have to review family programs with respect to 
efficiencies just as every other program in DOD will be reviewed 
against the overall needs of the Department. In so doing, the focus 
should be on the efficiency and quality of Family Support programs 
along with the leveraging of community-level organizations and citizens 
who desire to help their military-connected neighbors. DOD 
efficiencies, along with community partnerships and cooperation, are 
key to meeting the long-term needs of our military families in a 
fiscally constrained environment.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. If confirmed, I would continue to support the Deputy 
Secretary of Defense's 7 July 2006 memorandum which states that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. If confirmed, I would continue to support the 
standards for detainee treatment specified in the Army Field Manual on 
Interrogations and DOD Directive 2310.01E.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes. If confirmed, I will continue to ensure all DOD 
policies and plans related to intelligence interrogations, detainee 
briefings, and tactical questioning comply with Common Article 3 of the 
Geneva Conventions and the Army Field Manual on Interrogations.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes. I share the view that the way in which we treat 
detainees may have a direct impact on the manner in which U.S. forces 
are treated should they be captured in future conflicts.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as CJCS?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                   relationships in the armed forces
    1. Senator Levin. General Dempsey, in response to an advance policy 
question about your vision for the Armed Forces of today and the 
future, you responded, in part, that ``It will be necessary to 
establish a different relationship among the Active and Reserve 
components of our Armed Forces, and it is likely that we will have to 
establish a different relationship among our closest allies and 
partners.'' Can you elaborate on what you meant in terms of what might 
be different in the relationship among the Active and Reserve 
components of our Armed Forces and among our closest allies and 
partners?
    General Dempsey. In my judgment, it is reasonable to expect the 
relationship among the Active and Reserve components of our Armed 
Forces as well as among our closest allies and partners to evolve. 
Fiscal constraints, for example, will challenge our ability to program 
and budget sufficient resources to preserve the readiness investments 
made to the Reserve components. Constrained resources will also drive 
us to look at new approaches for how we maintain forward presence and 
build partnerships. As Chairman, I will work with the Secretary of 
Defense and Joint Chiefs of Staff to sustain a versatile and affordable 
Joint Force that preserves the strong relationship between our Active 
and Reserve components and with our allies and partners.

                     nominees with joint experience
    2. Senator Levin. General Dempsey, recently, the committee became 
aware in the case of nominees for Service chief and combatant command 
that there was a need for secretarial waivers for promotion to flag 
rank and for presidential waivers for such assignments because of a 
lack of joint experience. Are you committed to ensuring that nominees 
for these positions of importance and responsibility have the requisite 
joint qualifications?
    General Dempsey. I am wholly committed to a Joint Force led joint 
qualified leaders. Overall, our senior flag officers have substantial 
joint experience. Eligibility to pin on the rank of brigadier general 
or rear admiral is contingent on being a Joint Qualified Officer. It is 
my understanding that waivers are increasingly less frequent as our 
military continues to progress under Goldwater-Nichols.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                       military retirement system
    3. Senator Begich. General Dempsey, Secretary Panetta has called 
for a review of the military retirement system. Senior military 
leadership has vocalized support for a review of the military 
retirement system since personnel costs are a significant portion of 
the Department of Defense's (DOD) budget. DOD is going to have to work 
with constrained resources, however, we have the greatest military in 
the world because of the people who serve in it and they should be 
compensated their service--especially if they serve long-term. While 
studies may show retirement benefits are not a driving factor for young 
recruits, they certainly become a driving factor with age. Any 
proposals to Congress to modify the current retirement system must 
still provide appropriate compensation and recognition for long-term 
service, especially to retain the best and the brightest. Even the 
current discussions regarding military retirement are causing alarm 
among the force and may impact retention. In the midst of three ongoing 
operations overseas, is now the right time to evaluate and possibly 
modify the military retirement system?
    General Dempsey. I share in your conclusion about your military 
being the finest in the world. Sustaining our force at this level 
requires, in part, an assessment of how best to structure compensation 
and benefits to include retirement. In the era of fiscal constraints, 
we should review the military retirement system for efficiencies and 
effectiveness. However, any proposal should address the potential 
effect on recruitment, retention, and sustainment of the All-Volunteer 
Force.

    4. Senator Begich. General Dempsey, if confirmed, how do you 
propose to ensure discussions regarding modifications to the retirement 
system and any proposed modifications do not result in significant 
recruiting and retention issues or impact the ability to retain the 
best and the brightest among our servicemembers?
    General Dempsey. Our force management and compensation policies and 
programs are being assessed as part of the comprehensive review. The 
current statutory and policy framework has served us well during recent 
conflicts. However, fiscal constraints require us to examine options 
for a more affordable compensation structure that will not compromise 
the readiness of the All-Volunteer Force. As Chairman, I will ensure 
that all options under consideration include an assessment of the 
likely impact on recruiting and retention. Most importantly, I am 
committed to ensuring any potential changes do not break faith with our 
servicemembers, veterans, and their families.

    5. Senator Begich. General Dempsey, as the discussion continues, 
how will you and other senior leaders communicate with the force about 
pay, benefits, and retirement?
    General Dempsey. As Chairman, I will communicate directly with the 
Joint Force. I will encourage all our senior military leaders to 
conduct regular outreach through a variety of mediums to include media 
engagements, townhalls, journal articles, and social media. Our goal 
will be to share information openly and widely. I expect that the 
Service Chiefs will play an especially vital role.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                  national debt and national security
    6. Senator McCain. General Dempsey, the impact of the ongoing 
financial crisis over deficit spending and the Nation's enormous debt 
unquestionably will have an impact on defense budgets and how we 
respond to the many national security threats we face. I agree with 
Secretary Panetta who recently said that DOD would ``continue to be 
accountable to the American people for what we spend, where we spend 
it, and what the results are.'' Do you view the $14 trillion deficit 
and projections for significant increases in this amount in the future 
as a national security threat?
    General Dempsey. There is a relationship between our national 
security and our economic prosperity. Our national power is the 
aggregate of our diplomatic, military, and economic influence. In this 
respect, the national debt is a serious concern.

    7. Senator McCain. General Dempsey, what's the remedy for Admiral 
Mullen's belief that DOD has ``lost the ability to prioritize, to make 
hard decisions, to do tough analysis, to make trades''?
    General Dempsey. In my judgment, our acquisition system needs 
significant improvement. In particular, I will look closely for ways to 
improve accountability. This likely means a more prominent role for 
Service Chiefs early in the process. Another option under consideration 
is making assessments of cost, performance, and technical readiness of 
weapon systems even earlier in the acquisition process. As Chairman, I 
will ensure that the Joint Requirements Oversight Council synchronizes 
its decision points to better inform these earlier acquisition 
decisions. Through an improved Joint Capabilities Integration 
Development System, we will also work to ensure more focus on 
affordability through the analysis of risk versus cost, schedule, 
performance, and the urgency of the requirement.

    8. Senator McCain. General Dempsey, discussions on defense spending 
cuts as part of negotiations on raising the debt ceiling have, 
according to media reports, ranged from the $400 billion over 12 years 
that President Obama had already announced, to as much as $800 billion 
over 10 years, and in some cases $1 trillion over 10 years. None of 
these numbers assigned to defense cuts has been accompanied by any sort 
of strategic analysis. In other words, no one seems to be asking: 
``What do we need to spend for what we want our military to do?''
    In your opinion, what would a cut of $80 billion to $100 billion a 
year over 10 years mean in terms of impact on DOD? What sort of things 
would we have to be willing to cut? What sort of missions would we have 
to consider giving up or cutting back?
    General Dempsey. I would echo the Secretary of Defense who stated 
that ``cuts that deep would damage our national defense''. Most likely, 
such reductions would require changing our national security 
strategies, and would probably result in a different force than we have 
today. The force would likely be smaller and less able to address 
multiple, simultaneous contingencies.

    9. Senator McCain. General Dempsey, what are your top priorities 
for programs or missions you would protect?
    General Dempsey. As Chairman, my top priority is to protect the 
homeland and the American people. As mentioned in my hearing testimony, 
I will work to keep America immune from coercion. To this end, I am 
committed to developing a decisive, responsive, interdependent, 
versatile and affordable Joint Force that can deliver options for the 
Nation. As we make the force affordable, I am focused on keeping faith 
with our servicemembers, veterans, and their families.

    10. Senator McCain. General Dempsey, where do you think DOD can 
achieve the most savings?
    General Dempsey. The Department is placing renewed emphasis on 
creating a cost culture in both our military and civilian leadership. 
We are expecting significant savings from efficiencies announced and 
enacted last year. However, efficiencies are unlikely to be sufficient 
to achieve directed spending reductions. We are currently working 
through a comprehensive review to identify where additional savings can 
be achieved. Recommendations will be first provided to the President 
and eventually submitted through the budget request.

    11. Senator McCain. General Dempsey, how would you convince 
Congress that personnel and heath care costs are going to have to be 
part of any major reduction in defense spending?
    General Dempsey. Our health care and personnel costs have increased 
substantially over the past several decades. We have to invest in 
manpower, training, equipment, and infrastructure. We know what 
percentage of our total obligating authority we can invest into each 
account and remain in balance. It is on this basis that we will 
communicate with Congress.

    12. Senator McCain. General Dempsey, some plans currently under 
discussion claim to achieve a $1 trillion reduction in defense spending 
simply by reducing the baseline the Congressional Budget Office has 
been using for the cost of wars in Iraq and Afghanistan from an assumed 
level of about $150 to 160 billion per year for an indefinite period 
into the future. In your opinion, is DOD already planning for the 
spending on Iraq and Afghanistan to come down significantly in the 
future?
    General Dempsey. The President's recent announcement of troop 
drawdown in Afghanistan will change the Department's fiscal year 2012 
budget requirements for Operation Enduring Freedom (OEF), but the exact 
change will depend on the commanders' determination of the pace of the 
drawdown and/or adjustment of the forces mix. The Department is in the 
process of reformulating its Overseas Contingency Operations (OCO) 
requirements for OEF for fiscal year 2012, and developing its OCO 
funding requirements for fiscal year 2013. Given that the Forces in 
both OEF and Operation New Dawn (OND) are being reduced over time, a 
reduction in the OCO request logically follows. However, the costs for 
resetting the force that will extend beyond the drawdown dates.

    13. Senator McCain. General Dempsey, how much do you think we will 
need to spend in Iraq and Afghanistan to sustain our operations there 
after 2012? In other words, what is a reasonable level of spending for 
Iraq and Afghanistan to assume for the near-term future?
    General Dempsey. Spending levels will depend on the results of 
several pending decisions. Discussions over the structure of our future 
security relationship with Iraq are ongoing. For Afghanistan, planning 
is underway to determine the pace of withdrawing the first 33,000 
troops. The schedule for reducing remaining forces has not yet been 
determined. The OCO budget is a bottom-up budget preparation each year 
that is configured to support the military strategy. We will continue 
to work to achieve a reasonable estimate of spending.

                 troubled defense acquisition programs
    14. Senator McCain. General Dempsey, 2 weeks ago Congress was 
informed that the Government share of the cost overruns on the first 3 
lots of 28 aircraft for the F-35 Joint Strike Fighter (JSF) was a 
whopping $771 million. The next week, we learned that the prime 
contractor, Lockheed Martin, will face a bill for $283 million for 
their share of these cost overruns. Adding everyone's share together, 
including the additional expenses associated with ``concurrency''--
which means costs associated with trying to develop the aircraft and 
build production jets simultaneously--raises the total cost of these 
first 28 jets by just over $1 billion to a new estimate now of about 
$8.1 billion. That's a 15 percent cost increase for the first three 
lots of production aircraft. In April, the Government Accountability 
Office (GAO) projected as of last June that the total cost of 
development and procurement for the F-35 program would be about $383 
billion. DOD's latest estimate of the sustainment cost for the F-35 
over its projected life span is an unaffordable $1 trillion. In my 
view, even without 15 percent cost overruns, these costs are 
unsustainable in this fiscal environment. How can these costs be 
reduced?
    General Dempsey. My understanding is that the Department's plan to 
reduce production costs includes continued use of fixed price contracts 
and applying aggressive ``Should Cost'' analysis in our negotiations. 
This will limit the Department's liability for future cost growth, 
incentivize the contractor to control costs, and enable low rate 
initial production negotiations to result in the lowest price 
achievable. The approach to drive down operations and sustainment (O&S) 
costs focuses on reducing costs associated with Depot Level Repairables 
and implementation of cost reduction initiatives being developed in the 
Affordability Management Plan (AMP).

    15. Senator McCain. General Dempsey, does DOD have a ``Plan B'' if 
the costs of the F-35 cannot be significantly reduced?
    General Dempsey. The Department's focus for the F-35 is cost 
reduction and fielding an affordable 5th generation aircraft. Even as 
we do so, we will continue to assess ways to meet warfighter needs and 
our security objectives within the realities of today's fiscal 
environment.

    16. Senator McCain. General Dempsey, what would you do as Chairman 
to ensure that a program as expensive as the F-35 does not siphon away 
resources from other defense priorities?
    General Dempsey. I am committed to ensuring a balanced approach to 
defense priorities with regard to current operations and future 
capability requirements. As part of the ongoing comprehensive review, 
and institutionally through the Joint Requirements Oversight Council 
and other processes, I will work to ensure that we balance and align 
our resources to the highest defense priorities.

    17. Senator McCain. General Dempsey, we also recently learned from 
various media reports that the Air Force and Boeing are now expecting 
that the first four development aircraft for the replacement aerial 
refueling tanker, the KC-46A, are estimated to cost between $1 billion 
to $1.3 billion more than the contract's target cost. I'm particularly 
concerned that the taxpayers' share of that first $1 billion over 
target cost is 60 percent, or $600 million. Can you explain how it is 
that we contract for something using what is supposed to be a fixed 
price type contract, but before the metal is bent on the first aircraft 
the taxpayers are told they will face a bill for $600 million over the 
target cost?
    General Dempsey. My understanding is that the KC-46A tanker is a 
Fixed Price Incentive Firm contract with a ceiling price of $4.9 
billion. The intent is to get the best value for the taxpayer. Boeing 
acknowledges that its current cost estimate is $5.2 billion, $300 
million more than the contract ceiling price. Boeing absorbs this cost 
under the contract.

    18. Senator McCain. General Dempsey, when you tell the American 
people and Congress that the target cost for a program is a certain 
amount, what does that mean?
    General Dempsey. Generally, the target price is included in 
contracts as an element of the incentive structure. As the contractor 
reduces cost from the ceiling price to the target price, the 
contractor's profit increases with the government getting a share of 
the cost savings.

    19. Senator McCain. General Dempsey, according to media reports 
citing Boeing and DOD sources, the current estimated cost of this first 
development contract is $4.9 billion to $5.2 billion. The target cost 
of the contract was $3.9 billion. When the contract was announced, the 
official DOD press release, dated February 24, 2011, described the 
contract value as being ``more than $3.5 billion''. Can you explain why 
a contract value that was announced as $3.5 billion has now swelled to 
as much as $5.2 billion in 5 months?
    General Dempsey. It is my understanding that the contract includes 
both a ceiling price and a target price. The ceiling price of $4.9 
billion represents the maximum government liability for the development 
of the KC-46A. Any additional costs associated with developing the KC-
46A will be borne by Boeing. The announced value reflected a best case 
should Boeing maximize incentives contained in the contract.

    20. Senator McCain. General Dempsey, if confirmed, what will you do 
as Chairman to ensure that Congress and the American people are not 
asked to pay huge cost overruns on defense programs that are simply not 
affordable?
    General Dempsey. When I assume the office of Chairman, I will work 
with other Department officials to improve affordability early in the 
development of new joint capabilities. I will be attentive to 
requirements overreach or pursuit of insufficiently mature technologies 
without compromising innovation. Overruns will also be addressed with 
the Joint Requirements Oversight Council's trip-wire process. Through 
this process and others, we will continue to examine performance trades 
to mitigate cost growth and schedules delays, advise the Nunn-McCurdy 
certification process, and participate in Configuration Steering Boards 
and the Defense Acquisition Board.

                              afghanistan
    21. Senator McCain. General Dempsey, Admiral Mullen viewed the 
President's timetable to take the surge forces out of Afghanistan as 
more aggressive and incurring more risk than he was originally prepared 
to accept. What will be the impact of this troop withdrawal on our 
ability to keep the Taliban on its heels and protect the population?
    General Dempsey. As we recover the surge force, we will continue to 
maintain the pressure on the Taliban while simultaneously protecting 
the population. The surge force allowed us to reverse Taliban momentum, 
and to that end we have been largely successful, particularly in key 
districts that were once Taliban safe havens. Concurrent to these 
operations, we have steadily built Afghan National Security Forces 
(ANSF) capacity and capability to the point where we are now confident 
that they are increasingly able to take the lead in security in many 
areas.

    22. Senator McCain. General Dempsey, what are the goals in the year 
ahead to continue to reduce the influence and resiliency of the 
Taliban?
    General Dempsey. Our comprehensive civil-military strategy in 
Afghanistan will sustain pressure on the Taliban while expanding 
security for the populace. We will do this through coalition military 
operations and increasingly through partnered and independent 
operations by ANSF. Concurrently, we will help grow the Afghan capacity 
for governance and security as we transition full security 
responsibility by the end of 2014.

    23. Senator McCain. General Dempsey, are you aware of any military 
leader who recommended the withdrawal strategy the President adopted?
    General Dempsey. When the President announced the troop surge in 
December 2009, he also stated that these additional forces would begin 
to come home within 18 months. Those 18 months have elapsed and, true 
to his word, the President has made the decision to begin withdrawal of 
our surge forces beginning in July 2011 to be completed by summer of 
2012. It is my understanding that the withdrawal strategy announced by 
the President was ``within the range of options'' that military leaders 
presented. After the recovery of the surge force, there will be 68,000 
U.S. troops in Afghanistan.

                                  iraq
    24. Senator McCain. General Dempsey, what do you consider to be the 
``point of no return'' for the Maliki Government to request the 
continued presence of U.S. troops to assist in their efforts to defeat 
al Qaeda and provide a national defense?
    General Dempsey. On 2 August 2011, Prime Minister Maliki received 
approval from the Iraqi Council of Representatives to begin 
negotiations with the United States for a continued U.S. presence after 
2011. This important step by the Government of Iraq signifies their 
desire to maintain an enduring strategic relationship with us. As we 
continue to draw down our forces, the ability to support an Iraqi 
request for a continued U.S. presence becomes increasingly problematic, 
especially after 30 September 2011.

                              hollow force
    25. Senator McCain. General Dempsey, how would you define a hollow 
force?
    General Dempsey. While there is no consensus definition, the hollow 
force construct is useful for thinking about what we must avoid as we 
shape the future Joint Force. Generally, something hollow appears to 
have characteristics or capabilities that, in fact, it lacks. 
Essentially, a hollow force disproportionately retains force and 
organizational structure at the expense of proper training and fully 
functional equipment. This creates the illusion of readiness for the 
full range of military operations.

    26. Senator McCain. General Dempsey, if confirmed, what data or 
signs would you look for to determine if we are trending towards a 
hollow force?
    General Dempsey. Given the broad meaning often ascribed to what 
constitutes a ``hollow force'', we should focus on general trends 
across multiple indicators. This will best enable us to assess our 
ability to meet the military objectives outlined in national security 
strategies. Examples of relevant indicators include dwell time, unit 
readiness, and recruitment and retention rates. I will also be focused 
on the overall health of the force to include trends in personal and 
family data like divorce rates and suicide.

    27. Senator McCain. General Dempsey, in your opinion, do the 
Military Services have adequate benchmarks or other measuring criteria 
to determine how levels of funding affect overall readiness?
    General Dempsey. It is my understanding that each of the Military 
Services use costing models to estimate funding for required levels of 
readiness, including support of OCOs. Their estimates are based on 
adequate readiness metrics such as system miles, steaming hours, or 
flying hours. The Services then report readiness through the Defense 
Readiness Reporting System. The Joint Staff then evaluates readiness 
across the Joint Force through the Chairman's Readiness System.

    28. Senator McCain. General Dempsey, if confirmed, do you have 
confidence you will be able to tell the Secretary of Defense or the 
President that defense cuts above a certain level raise the risk of a 
hollow force?
    General Dempsey. I am confident that I will be able to define both 
strategic and institutional risk.

                                 yemen
    29. Senator McCain. General Dempsey, is al Qaeda in the Arabian 
Peninsula (AQAP) in a stronger position to plan and launch an attack 
against the United States or our allies given the sustained political 
and security unrest in Yemen?
    General Dempsey. It seems clear that AQAP is attempting to exploit 
the political unrest in Yemen to strengthen its position. It is also 
clear that AQAP retains aspirations to plan and launch a transnational 
attack against us or our allies.

                                somalia
    30. Senator McCain. General Dempsey, General Carter Ham, Commander 
of U.S. Africa Command (AFRICOM), has stated that al Qaeda and its 
affiliates in East Africa--to include al Shabaab--have experienced a 
``dramatic increase'' in their influence in the region. In response to 
advance policy questions posed by the committee, you stated that al 
Shabaab has the capability to plan attacks against the United States 
and Western interests and that the group's efforts to recruit U.S. 
persons increases the threat to the U.S. Homeland. Do you agree with 
General Ham's assessment?
    General Dempsey. I do. Al Shabaab has increased its influence in 
East Africa by merging with like-minded Islamic groups and establishing 
Islamic administrations southern districts of Somalia. Despite their 
recently reported withdrawal from Mogadishu, I do not consider the 
threat they pose has diminished.

    31. Senator McCain. General Dempsey, what is your understanding of 
the extent of al Shabaab's efforts to recruit U.S. and Western citizens 
for terrorist activity?
    General Dempsey. To my understanding, it is likely that over 40 
Americans have traveled to Somalia to join al Shabaab. A majority of 
these U.S. persons are ethnic Somalis who have joined al Shabaab for 
nationalistic reasons. Additionally, al Shabaab supporters in the 
United States have been known to conduct recruiting and fundraising 
activities within their communities.

    32. Senator McCain. General Dempsey, what is the role of DOD in 
combating these recruitment efforts?
    General Dempsey. It is my understanding that DOD supports efforts 
to identify, disrupt, and disable extremist networks that drive al 
Shabaab's recruiting. We support all interagency actions against 
extremist networks by applying unique military capabilities consistent 
with our legal authorities. We should take all legal means possible to 
disrupt the recruitment of extremists into the al Shabaab network.

    33. Senator McCain. General Dempsey, to what extent does al Shabaab 
coordinate with al Qaeda?
    General Dempsey. Al-Shabaab first publicly aligned itself with al 
Qaeda leaders in Pakistan in 2008. In 2010, al Shabaab declared its 
loyalty to al Qaeda with the release of a video called ``At Your 
Service, O Usama.'' More recently, al Shabaab pledged to follow the new 
al Qaeda leader Ayman Zawahiri following bin Laden's death. There is 
also reason to conclude that al Shabaab has established a foreign 
fighter training program in Somalia, and portrayed itself as playing a 
role in the international jihad.

                                 mexico
    34. Senator McCain. General Dempsey, what is your assessment of the 
security situation in Mexico?
    General Dempsey. I am concerned about violence in Mexico and how it 
affects our security. Violent Transnational Criminal Organizations 
threaten innocent civilians, the Government of Mexico, and the United 
States. The Mexican security forces face a well-armed and financed 
adversary with regional, if not global reach. The people and Government 
of Mexico, including their security forces, are to be admired for their 
resilience and determination in confronting this threat. Our 
increasingly strong partnership with Mexico is one way we are sharing 
in the responsibility to address this dynamic security challenge.

    35. Senator McCain. General Dempsey, in what ways can DOD expand 
its support to President Calderon and his government to combat the 
cartels and other transnational criminal organizations operating in 
Mexico and throughout the region?
    General Dempsey. The scope and depth of our military-to-military 
relationship with Mexico has grown as part of the overall U.S. 
Government approach for assisting the Government of Mexico against 
these criminal organizations. As we further strengthen our relationship 
with Mexico, we will continue to respect their sovereignty and provide 
the assistance we can in response to their requests. Among other 
initiatives, we should continue with subject matter expert exchanges, 
exercises, and the sharing of information and lessons learned. The 
sharing of information and intelligence, where appropriate, is 
particularly valuable as a way to enable operations against these 
threats to our mutual security.

                             nuclear triad
    36. Senator McCain. General Dempsey, earlier this month, General 
Cartwright suggested that DOD must re-examine the future role of each 
leg of the nuclear triad--bomber aircraft, intercontinental ballistic 
missiles (ICBM), and submarine-launched missiles--so that desired 
capabilities and quantities are maintained, rather than determined by 
budget-cutting drills. General Cartwright told reporters that ``nothing 
is off the table'' as DOD looks to cut at least $400 billion from the 
budget through fiscal year 2023. Do you agree with General Cartwright's 
statement?
    General Dempsey. As we shape the future Joint Force, our assessment 
should include consideration of what is required for an effective, 
reliable nuclear deterrent. It is my understanding that includes 
examining how the nuclear triad might be adapted to the security 
environment and our national security strategy. As Chairman, I will 
remain committed to a safe, secure, and effective nuclear force at 
levels that maintain strategic deterrence and stability vis-a-vis 
Russia and China, strengthens regional deterrence, and reassures U.S. 
allies and partners.

    37. Senator McCain. General Dempsey, the administration has 
identified over $120 billion over the next 10 years for the sustainment 
and modernization of the triad. Much of that funding is dedicated to 
the development and procurement of our next-generation ballistic 
missile submarine and bombers. One of the biggest unanswered questions 
is the future of the ICBM force, which will need to be replaced by 
2030. Do you believe it is essential to sustain the nuclear triad and 
commit the resources to fulfill the recapitalization of each leg? If 
not, do you believe it is in our strategic interest to forgo one or 
more legs of the triad?
    General Dempsey. I believe we must sustain and modernize a safe, 
secure, and effective nuclear deterrent that is also affordable. I also 
believe we must do this in a manner that maintains strategic deterrence 
and stability, strengthens regional deterrence, and assures our allies 
and partners. To this end, I am supportive of the conclusions of the 
2010 Nuclear Posture Review (NPR) Report, which stated that the U.S. 
nuclear Triad of ICBMs, SLBMs, and nuclear-capable heavy bombers will 
be maintained under the New Start treaty. When Chairman, the Joint 
Staff will continue to assess what is required for an effective nuclear 
deterrent as part of a future Joint Force.

                             cyber security
    38. Senator McCain. General Dempsey, after the release of the DOD 
cyber strategy last week, General Cartwright, the Vice Chairman of the 
Joint Chiefs of Staff, stated that DOD is spending 90 percent of its 
time playing defense against cyber-attacks and 10 percent playing 
offense and that DOD should invert this defense-offense ratio to assert 
that there will be consequences to a cyber-attack against the United 
States. Do you agree with General Cartwright's statements?
    General Dempsey. Consistent with my support of the Department's 
Strategy for Operating in Cyberspace, I agree that we need to ensure 
our adversaries understand there are consequences to a cyber-attack 
against the United States. To this end, the Department must strike a 
balance between offensive and defensive cyber capabilities and 
capacity. We should do this while continuing our deterrent posture and 
collaborating with our interagency and international partners to 
enhance our cyber security posture. We should continue to examine 
offensive capabilities and the policies required to enable their 
appropriate use.

    39. Senator McCain. General Dempsey, what do you view as the 
appropriate direction DOD should be headed with respect to cyber 
strategy?
    General Dempsey. The recently released DOD Strategy for Operating 
in Cyberspace provides the foundation for our cyber strategy. I endorse 
its overall objectives and strategic initiatives. Moreover, it clearly 
prioritizes reducing our own vulnerabilities as essential to execute 
this new strategy.

    40. Senator McCain. General Dempsey, do you view this as a matter 
of urgency?
    General Dempsey. Yes. As the recently released DOD Strategy for 
Operating in Cyberspace articulates, the Department and the Nation have 
vulnerabilities in cyberspace. The continuing growth of networked 
systems, devices, and platforms means that cyberspace is an integral 
part of an increasing number of capabilities upon which DOD relies to 
complete its missions. We must leverage the opportunities cyberspace 
presents to advance our capabilities and national security objectives.

                       further nuclear reductions
    41. Senator McCain. General Dempsey, recent statements by the 
President's National Security Advisor have prompted new questions 
regarding the administration's intent to pursue additional reductions. 
In his speech before the Carnegie Endowment, National Security Advisor 
Thomas Donilon stated that the administration is currently ``making 
preparations for the next round of nuclear reductions'' and that DOD 
will be directed to ``review our strategic requirements and develop 
options for further reductions in our current nuclear stockpile.'' 
Donilon continued by stating that in meeting these objectives, the 
White House will direct DOD to consider ``potential changes in 
targeting requirements and alert postures.''
    The New START Treaty entered into force only 5 months ago. Do you 
believe it is prudent for the United States to pursue further 
reductions? If so, why?
    General Dempsey. I believe the United States should carefully 
consider the implications of future reductions in the numbers of 
nuclear weapons. As Chairman, I will continue to assess the proper 
force size and capabilities required for an effective nuclear 
deterrent. Any potential reductions should consider the full range of 
potential threats and continue to support U.S. commitments to 
stability, deterrence, and assurance.

    42. Senator McCain. General Dempsey, what conditions in your 
opinion must exist for the additional near-term reductions; do you 
believe it would require a fundamental shift in the geopolitical 
environment?
    General Dempsey. Any future reductions must continue to strengthen 
deterrence of potential regional adversaries, enhance strategic 
stability as it relates to Russia and China, and assure our allies and 
partners. In my judgment, the size and composition of Russia's nuclear 
forces will remain a significant factor in determining how much and how 
fast we are prepared to reduce our nuclear forces. As we engage Russia 
and China in strategic dialogue, we will continue to assess the proper 
force size and capabilities required for an effective nuclear 
deterrent.

    43. Senator McCain. General Dempsey, focusing on the reckless 
ambitions of North Korea and Iran and the fact that every current 
nuclear weapons state is currently modernizing its nuclear arsenals, do 
you agree that any reductions to the size and scope of the stockpile 
should be multilateral and involve not only other nuclear powers but 
also in serious consultation with our key non-nuclear allies dependent 
on U.S. nuclear forces?
    General Dempsey. We will continue, and expand as appropriate, 
consultations with nuclear and non-nuclear allies and partners to 
address how to ensure the credibility and effectiveness of the U.S. 
nuclear deterrent.

    44. Senator McCain. General Dempsey, during our committee's 
hearings on the New START treaty, General Chilton, the former Commander 
of U.S. Strategic Command, testified that the force level under the New 
START Treaty (1,550 warheads on 700 deployed delivery vehicles) was 
``exactly what is needed today to provide the deterrent.'' We received 
extensive briefings from General Chilton and other senior DOD officials 
during consideration of the treaty last year. Do you agree with General 
Chilton's assessment? If so, do you believe that the global threat 
environment has changed in any way since General Chilton made these 
comments to merit a near-term reduction in the size or scope of our 
nuclear deterrent?
    General Dempsey. The U.S. nuclear strategy and force structure 
continually evolves with the global strategic environment. Going 
forward, and as part of the Nuclear Posture Review Report follow-on 
analysis, we will continue to evaluate changes to the environment that 
might impact on our force structure. We are committed to sustaining and 
modernizing a safe, secure and effective nuclear deterrent in an 
efficient and cost effective manner.

                        research and development
    45. Senator McCain. General Dempsey, in the current fiscal 
environment, some in Congress have suggested that funding for research 
and development (R&D) within the Services and for defense-wide agencies 
should be dramatically reduced to find savings. Do you agree that R&D 
funding should be cut? If so, please explain. If not, please explain 
why you disagree and outline what you see as a path forward for R&D 
funding, particularly with regard to the fiscal situation.
    General Dempsey. A balanced approach is needed that considers 
today's operational commitments and tomorrow's anticipated threats 
within fiscal constraints. We should be cautious about cuts from any 
account, including R&D. The ongoing comprehensive review will develop 
guidelines and recommendations on our path forward for R&D funding.

    46. Senator McCain. General Dempsey, if you had to make cuts to R&D 
lines, what would you consider a responsible budget reduction?
    General Dempsey. My expectation is that the Department's ongoing 
comprehensive review will provide guidelines and recommendations on 
responsible budget reductions given today's fiscal realities.

    47. Senator McCain. General Dempsey, what criteria would you use to 
determine what R&D programs should be cut?
    General Dempsey. The Department's ongoing comprehensive review will 
provide guidelines and recommendations on responsible budget 
reductions. This review will take into account our need to protect our 
core national security interests and provide a set of defense programs 
that will meet the threats present today and anticipated tomorrow. 
Within this review, heavy scrutiny will be applied to those programs 
that are not meeting cost, schedule, and requirements goals.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
              boycotts of certain u.s. defense contractors
    48. Senator Inhofe. General Dempsey, in recent years, global 
activists, foreign business enterprises, and certain governments have 
demonstrated an increased willingness to advance de facto foreign 
boycotts on contractors and subcontractors of DOD that provide certain 
products to DOD. If successful, such actions would not only harm the 
U.S. defense industrial base, but also impede the military strategy and 
tactics of our Armed Forces and allies in regions where our forces are 
deployed or our interests are at stake.
    Such endeavors include a recent effort to classify the Sensor Fuzed 
Weapon (SFW) as a prohibited weapon under the terms of the Convention 
on Cluster Munitions (CCM), and ongoing attempts today to pressure 
investors and suppliers to terminate their relationships with U.S. 
manufacturers that provide key SFW components to DOD. Meanwhile, 
similar but less reliable weapons possessed by other governments are 
permitted for use under the CCM.
    The motivations and efforts of those now seeking to enforce the 
CCM--which was forged outside recognized international bodies--contrast 
sharply with ongoing efforts by our Government and others to address 
the true humanitarian impact of cluster munitions while recognizing the 
SFW's enduring and critical importance to our military strategy on the 
Korean Peninsula, Persian Gulf, and other sensitive regions.
    I understand that in the coming weeks U.S. diplomats will have an 
important opportunity to advance a responsible course of action with 
regard to cluster munitions during preparations for a review of the 
United Nations (UN) Convention on Prohibitions or Restrictions on the 
Use of Certain Conventional Weapons (CCW). Given the potential negative 
impact of the CCM on the SFW, its role in our military strategy, the 
defense industrial base, and foreign military sales to allies in key 
regions, what actions will you take to support and reinforce U.S. 
diplomatic efforts to achieve tangible progress on an alternative 
agreement under the auspices of the CCW?
    General Dempsey. We are not a party to the Convention on Cluster 
Munitions (CCM or Olso Treaty); however, we are participating in 
ongoing negotiations to develop a comprehensive and binding Convention 
on Certain Conventional Weapons (CCW). We intend for this protocol to 
align with DOD policy on the use, transfer, stockpile, and destruction 
of cluster munitions. The CCW protocol under negotiation addresses the 
legitimate military need to maintain stocks of cluster munitions for 
national security and defense purposes while reducing the risk of 
unintended harm to civilians. When Chairman, I will ensure that the 
Joint Staff fully supports the DOD policy and negotiations to conclude 
a CCW protocol.

                    global security contingency fund
    49. Senator Inhofe. General Dempsey, our military-to-military 
(1206), civilian-to-civilian (1207), small-scale Special Forces (1208), 
Commander's Emergency Response Program (CERP), and Combatant 
Commander's Initiative Fund (CCIF) have been incredibly successful in 
aiding developing nations, fighting terrorism, and providing resources 
for emergency situations. Now the Global Security Contingency Fund, 
which would be authorized under this committee's version of the 
National Defense Authorization Act for Fiscal Year 2012, would supply 
the Department of State (DOS) with authority to use a $300 million fund 
drawn from authorities like section 1206 to bolster the security of our 
allies. My belief is that the key to these programs has been the 
combined efforts of both DOD and DOS . . . Chiefs of Mission and 
combatant commanders working together to increase the capabilities of 
our partner nations to provide for their own security, increasing 
stability in their region and around the globe. What value do these 
funds provide our warfighters?
    General Dempsey. The programs you mention are highly valuable to 
our ability to respond to emergent challenges and opportunities. The 
provision of timely assistance can help promote stability, combat 
terrorism, enable partners, and respond to urgent humanitarian relief 
and reconstruction requirements. Capable partner nations reduce the 
need for U.S. forces while enhancing security. To this end, the Global 
Security Contingency Fund makes DOD and DOS collaboration the norm in 
order to ensure our security assistance programs are as effective as 
possible. Funding is required from both DOD and DOS, and expenditure of 
funds requires consultation and concurrence from both departments.

    50. Senator Inhofe. General Dempsey, what is the future of the 
partnership between DOD and DOS when it comes to foreign security 
assistance?
    General Dempsey. DOD's relationship with DOS is certain to remain 
strong on multiple fronts to include our collaboration on security 
assistance. The proposed Global Security Contingency Fund is just one 
example of how we can increase cooperation in the delivery of security 
sector assistance. As Chairman, I will continue to seek ways to 
strengthen our partnership with DOS and others to ensure a whole-of-
government approach.

                         traumatic brain injury
    51. Senator Inhofe. General Dempsey, traumatic brain injury (TBI) 
continues to be one of the most prevalent wounds from operations in 
Iraq and Afghanistan. The ability to diagnose and treat TBI continues 
to be problematic despite the priority Congress and the Army have given 
to this wound. I remain concerned that we are not adequately screening 
our soldiers prior to deployment and when they return. Once diagnosed 
with TBI, we need to be able to treat our wounded warrior and ensure 
that treatment is continued as long as needed, to include transition to 
Department of Veterans Affairs (VA) care. Various alternative 
treatments for TBI may have promise and are used in the private sector 
but few of these treatments have been approved for use by Army 
soldiers. In a report by National Public Radio (NPR), General Chiarelli 
expressed frustration about the pace of the vetting of these 
treatments. Are you satisfied with the pace with respect to identify 
TBI and treatment to include alternative treatments?
    General Dempsey. I share General Chiarelli's sense of urgency to 
find effective solutions to these problems. I am committed to ensuring 
early detection of concussion and finding state of the science 
treatments for wounded warriors with TBI. To my knowledge, we are fast 
tracking any available treatment strategies that have proven to be safe 
and effective to our military members. There is considerable work 
occurring in the civilian academic, industry and VA medical research 
communities. We are working very closely with our civilian counterparts 
to vet the outcomes of these studies, and when the clinical results 
become available, quickly transition treatment protocols to our wounded 
military.

    52. Senator Inhofe. General Dempsey, what frictions are delaying 
the vetting of alternative treatments?
    General Dempsey. I am committed to fielding alternative treatments 
to our wounded warriors as quickly as possible. In doing so, we have a 
responsibility to make sure that any treatment alternatives have been 
tested and found to be safe and effective. Good research to determine 
the clinical effectiveness of any treatment is both time and resource 
intensive. There are also clinical issues which cloud the blanket 
adoption of civilian research findings. For example, post-traumatic 
stress and chronic pain are not seen with such frequency in the 
civilian sector. However, we are engaged with our civilian counterparts 
in an effort to appropriately adopt alternative treatment strategies 
for the care of our wounded warriors.

    53. Senator Inhofe. General Dempsey, what can we do to speed up the 
process of the vetting better ways of diagnosing and treating TBI?
    General Dempsey. We have made tremendous progress, but we must 
continuously seek ways to improve the process. For example, it is my 
understanding that we are undertaking a comprehensive review of over 
400 studies on TBI. In-process-reviews are conducted on each of the 
topics, which allow a deep dive analysis of specific treatment 
strategies. This year, for example, we have reviewed new studies on 
neuroimaging, non-invasive diagnostics in mild TBI, blast brain 
research, and biomarker findings. This review process allows us to 
quickly assess what strategies work and just as important, what 
strategies do not work.

    54. Senator Inhofe. General Dempsey, what types of equipment 
solutions are being developed, procured, and fielded to help prevent, 
measure, and identify TBI?
    General Dempsey. We have developed a program to evaluate and field 
devices and equipment that can aid in the prevention, identification, 
and assessment of TBI. Among many others are a portable 
electroencephalogram (EEG) for battlefield use and an eye tracking 
device to assess attention/concentration deficits. In addition, we are 
working with the materiel community to improve helmet design to help 
mitigate blast effects and prevent head injuries. As Chairman, I will 
support efforts to aggressively identify, evaluate, and disseminate 
best practices, equipment, and programs for our wounded warriors with 
TBI.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                        kiowa warrior helicopter
    55. Senator Wicker. General Dempsey, it worries me that a series of 
upgrades to extend the service life of the legacy Kiowa Warrior 
helicopter appear to be conveniently organized into individual programs 
that will escape the rigor and oversight required under ACAT-1D 
programs. Can you assure me that, if confirmed, you will exercise your 
responsibilities as Chairman of the Joint Requirements Oversight 
Council to personally look into this issue and make sure the Army is on 
a path that will get the best value from our investment?
    General Dempsey. As Chairman, you can be assured that the Joint 
Requirements Oversight Council will ensure the appropriate cost and 
capability trades are being made to deliver the best value to the 
Department.

    56. Senator Wicker. General Dempsey, I am aware that the Analysis 
of Alternatives (AOA) for this program is complete, yet we have not 
been briefed on the results. Would you please provide me with the 
results of the AOA and what the acquisition plan is for replacing the 
legacy scout fleet with a modern capability?
    General Dempsey. Although the Analysis of Alternatives for the 
Armed Aerial Scout is complete, the final report is still in 
development. To date, the analytical results were briefed to the Joint 
Senior Advisory Group and to the Vice Chief of Staff of the Army. The 
Army is currently assessing the path forward for the Armed Aerial Scout 
given the new fiscal environment. As Chairman, I look forward to 
working with this committee to ensure we are developing an affordable 
future Joint Force.

                        alternative armed scout
    57. Senator Wicker. General Dempsey, will you assure me that the 
Alternative Armed Scout program will include competition as a 
fundamental element of the procurement strategy?
    General Dempsey. Should the Army decide to pursue a new solution to 
fulfill the requirements of the Armed Aerial Scout, I will advocate for 
a competitive process consistent with current acquisition policies to 
derive the best value for the U.S. taxpayer.

                 foreign language and culture training
    58. Senator Wicker. General Dempsey, I am a strong proponent of 
foreign language and cultural training at the military academies and 
for Reserve Officers' Training Corps (ROTC) cadets and midshipmen. To 
date these efforts have been limited to a few institutions, for 
example, the University of Mississippi. To what extent do you believe 
that education and training in foreign languages and cultures are 
important in preparing the next generations of military officers, and 
how would you use the chairmanship of the Joint Chiefs of Staff to 
further this agenda?
    General Dempsey. Our future officers will operate in a global 
environment where national security interests are inextricably linked 
to the greater international community. Knowledge of foreign languages 
and culture is essential to building partnerships and multilateral 
operations. As Chairman, I will work with the Joint Chiefs of Staff and 
through our joint officer development programs to optimize foreign 
language and cultural training and education. I will also support DOD 
efforts authorized under Section 529 of the 2010 National Defense 
Authorization Act to establish Language Training Centers at accredited 
universities to accelerate the development of expertise in critical and 
strategic languages.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
                          2013 fighting season
    59. Senator Brown. General Dempsey, in light of the debate 
regarding the significance of a missed fighting season in the summer of 
2013 due to the President's proposal to withdraw 33,000 troops by the 
end of next August, does a summer 2013 fighting season matter?
    General Dempsey. The 2013 summer season does matter. Our ability to 
maintain pressure on the Taliban will be sustained as the surge force 
is withdrawn. Even as we reduce forces, the ANSF are gaining in 
capacity and capability. In addition, Afghan special forces and their 
coalition partnered forces will continue to degrade Taliban mid- and 
senior leadership by capturing or killing them wherever they operate in 
Afghanistan.

                         afghan contract fraud
    60. Senator Brown. General Dempsey, according to yesterday's 
Washington Post, a year-long investigation conducted by the U.S. 
military uncovered definitive evidence that taxpayers' money intended 
to fund a $2.16 billion transportation contract in Afghanistan ended up 
in the hands of the Taliban through fraud, kickbacks, and money 
laundering. Another report released last week by the Special Inspector 
General for Afghanistan Reconstruction found that U.S. agencies still 
have limited visibility over the circulation of these funds, leaving 
them vulnerable to fraud, waste, or diversion to insurgents. Can you 
comment on this and tell me how we can lower the risk involved with our 
reliance on contractor support?
    General Dempsey. Contractors provide critical logistical and 
services support to operations in Afghanistan. The use of local 
national contractors is integral to our civil-military campaign. 
Despite the capabilities enabled by contractors, corruption remains a 
challenge. In light of several investigative reports, DOD and U.S. 
Central Command established several task forces to address contracting 
accountability and institute mechanisms to enhance performance 
monitoring. Additionally, our management of contractors on the 
battlefield evolved from an initial approach toward pro-active theater-
wide management. Together, these broad initiatives-and many others-are 
improving the way we use contractor support. But clearly more needs to 
be done.

                         employment of veterans
    61. Senator Brown. General Dempsey, last June, 13.3 percent of 
veterans were unemployed--4 percent higher than the national average, 
which means approximately 260,000 people in real numbers are out of 
work. You noted that one area where we can improve is individual case 
management when a servicemember transitions from the Active Force to 
veteran status. Can you comment on the ways in which DOD and the VA are 
collaborating to improve the transition of wounded warriors and their 
families into the VA system, particularly when it comes to employment?
    General Dempsey. To strengthen and improve transition of service 
men to civilian life, DOD is working with the Veterans Administration 
(VA) and the Department of Labor (DOL) to re-engineer, redesign, and 
transform the current program in a way that will better meet the needs 
of servicemembers and their families. The enhanced Transition 
Assistance Program (TAP) is a collaborative effort where each agency 
will improve its component of TAP through a number of initiatives to 
include leveraging technology and improving curriculum, staffing, and 
training. We are also developing ways to make information accessible 
24/7. DOD is also collaborating with the VA, DOL, and the Office of 
Personnel Management on an Education and Employment Initiative (E2I) to 
address employment concerns. The goal of the E2I pilot is to engage 
servicemembers early in their recovery to identify skills they have, 
the skills they need, and the employment opportunities to which those 
skills can be matched.

    62. Senator Brown. General Dempsey, I continue to hear from 
veterans who--despite their technical expertise, leadership skills, and 
military experience--feel as though they are ultimately disqualified 
for civilian positions due to a lack of civilian equivalent 
certifications. I hear it over and over again. They're told while on 
Active Duty that their veteran status and military experience will put 
them ahead of their civilian peers when they transition out of the 
military simply because they've proven themselves as reliable leaders. 
Unfortunately, this is not always the case. Is DOD working on a system 
to help servicemembers translate their military-specific skills and 
vocational expertise to the civilian sector?
    General Dempsey. I am absolutely convinced that our servicemembers 
possess valuable skills that should translate well to the civilian 
sector. To my knowledge, there are many initiatives underway. For 
example, servicemembers can go to Career One Stop to find information 
on exploring careers, salary and benefits, education and training, 
resume and interviews, and licensure and certification (http://
www.careeronestop.org). The Workforce Credentials Information Center 
provides a wealth of licensure and certification information. The 
member can also access the Occupational Information Network called 
O*NET (www.onlineonetcenter.org). O*NET helps the servicemember to 
crosswalk his or her Military Occupational Code and the civilian 
equivalency of that code, linking the member to the Standard 
Occupational Classifications in the civilian workforce. These tools 
will help, but they are just part of what must be a more comprehensive 
solution. As Chairman, I will continue to collaborate with our partners 
in the DOL to address this critical issue.

                                suicides
    63. Senator Brown. General Dempsey, in 2010 alone, there were 468 
suicides throughout the military. It's estimated that between 2005 and 
2009, one servicemember committed suicide every 36 hours. More men and 
women committed suicide in 2010 than died in combat. Do you agree that 
the military is facing a suicide epidemic, and what are we doing about 
it?
    General Dempsey. I remain deeply concerned about the suicide rate 
among servicemembers. As Chairman, I will support the action plan 
resulting from the 2010 DOD Task Force Report on Prevention of Suicide. 
The plan will address the 13 foundational and 76 targeted 
recommendations in the report. It is my understanding that DOD intends 
to update Congress once the plan is implemented this fall. In my 
judgment, expeditious implementation and resourcing of these 
recommendations will go a long way to ensuring that our servicemembers' 
and families' psychological health and mental health issues are 
addressed.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                    deployment cycle support program
    64. Senator Ayotte. General Dempsey, the New Hampshire National 
Guard has developed the Deployment Cycle Support Program (DCSP) to help 
prepare and support servicemembers and their families during the full 
cycle of mobilization, deployment, and reintegration. It is a cost-
effective public-private partnership between the New Hampshire National 
Guard, New Hampshire Department of Health and Human Services, Easter 
Seals, and civilian and veteran service organizations. The DCSP 
combines public funding and private resources to establish an 
integrated, sustainable, and fiscally-responsible service delivery 
framework that delivers measured results. The National Guard has found 
that military members involved in DCSP are eight times more likely to 
be treated for previously untreated mental health issues, four times 
more likely to stay married, four times more likely to stay in the 
military, and five times less likely to be homeless. The program also 
provides licensed support to all servicemembers and their families 
considered at risk for suicide.
    Once you are confirmed, do you commit to work with me and Congress 
to support and learn from best practices for this important program in 
order to ensure all servicemembers and their families--especially those 
in the Reserve component who are often far from bases and established 
support networks--have access to the quality, full-cycle support they 
deserve and that our Nation's military readiness demands?
    General Dempsey. One of my highest priorities is the care of our 
servicemembers and their families. We need to confront these challenges 
through innovative government and private sector partnerships like the 
Deployment Cycle Support Program. Such initiatives will become more 
valuable in a fiscally constrained environment. They clearly enable us 
to attend to the unique challenges faced by our community-based and 
geographically-dispersed Reserve components. I am committed to working 
closely with Congress, our Service Chiefs, Federal partners like the 
Department of Veterans Affairs, and State, local, and private 
organizations to leverage best practices like the ones you highlight.

                   medium extended air defense system
    65. Senator Ayotte. General Dempsey, I am concerned about the DOD 
problems in recent years in the area of procurement. One of the more 
recent failures is that of the Medium Extended Air Defense System 
(MEADS). After the investment of $1.5 billion of taxpayer money, DOD 
concluded earlier this year that the program remains a high risk for 
both cost and schedule. Despite these cost and schedule failures, DOD 
decided to not terminate the program because the Memorandum of 
Understanding on which the program is based commits the United States 
to continued funding up to an agreed cost even if the United States 
withdraws from the program. As a result, DOD has requested $804 million 
over fiscal years 2012 to 2013 for the continued development of a 
system it has no intention of fielding due to technical challenges, 
cost overruns, and schedule delays. What is your assessment of the 
MEADS?
    General Dempsey. It is my understanding that the Department's 
options are constrained by a 2004 MEADS agreement with our German and 
Italian partners. Funding MEADS up to the existing ceiling established 
in the Memorandum of Understanding (MoU) enables all partners to 
harvest technology and proven concepts from investments thus far. This 
would also place the development on sufficiently stable footing to 
support Germany and Italy in continued MEADS development and production 
after the MoU funding is expended. It would also provide the same 
options to us should our air defense plans change.

    66. Senator Ayotte. General Dempsey, do you believe it makes sense 
to spend $804 million over the next 2 fiscal years on a program we are 
not going to field?
    General Dempsey. In light of the Memorandum of Understanding (MoU) 
with our German and Italian partners, and based on extensive analysis 
and deliberations, our best option is to complete the lower cost 
restructured Proof of Concept effort. This will enable the Department 
and our MEADS partners to harvest technology from our work to date. 
Additionally, it places the program on stable footing to support 
Germany and Italy in their plans to continue MEADS while honoring the 
MoU. It would provide options to the United States should our air 
defense plans change. The Department is committed to maximizing the 
return on remaining funds and prior investments.

    67. Senator Ayotte. General Dempsey, do you believe we should push 
our allies to work with us to limit our financial obligation and 
terminate this program multilaterally?
    General Dempsey. The Department's senior leadership has explored 
mutual termination with Italy and Germany, and our partners have 
clearly stated they have no interest in pursuing this course of action. 
The German National Armaments Director continues to express German 
support for the program and has recently restated their plans to field 
MEADS after a successful Proof of Concept effort. Our Italian partners 
have also confirmed their continued commitment. Faced with these facts, 
a multilateral withdrawal is not an option, and the United States would 
be forced to execute a unilateral withdrawal from the program. A 
unilateral U.S. withdrawal from the program would entail significant 
termination costs for the United States.

    68. Senator Ayotte. General Dempsey, how can we work together to 
avoid procurement failures like this in the future?
    General Dempsey. As Chairman, I look forward to working with 
Congress and this committee to mitigate program risk and maximize 
program success rates. Development and procurement of new weapons 
systems must be carefully assessed to ensure funds are spent wisely. 
For my part, I will ensure that the Joint Requirements Oversight 
Council sustains a robust requirements validation process and closely 
monitors cost growth through the trip-wire process. Participation in 
Configuration Steering Boards will further shape affordable solutions 
for the Joint Force.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                            fort hood attack
    69. Senator Collins. General Dempsey, as ranking member of the 
Senate Homeland Security and Governmental Affairs Committee, I worked 
with Senator Lieberman to investigate the U.S. Government's failure to 
prevent the Fort Hood attack. One of the most troubling findings was 
that it found the Army and Federal Bureau of Investigation 
``collectively had sufficient information necessary to have detected 
Major Hasan's radicalization to violent Islamist extremism but failed 
both to understand and to act on it.'' In light of the Fort Hood attack 
and the findings in this report, what steps has the Army taken to 
improve personnel oversight such that warning signs of individual 
problems are identified and acted on as early as possible?
    General Dempsey. The Army has implemented over 20 of the 
recommendations proposed by the DOD's Independent Review Panel and the 
Army's Internal Review Team. Among many initiatives, the Army recently 
established the Army Protection Program to better manage risks relative 
to the safety and security of our soldiers, families, civilians, 
infrastructure and information. The Army has also revised its policy 
regarding command-directed mental health evaluations. Behavior health 
screenings for new Army applicants is also required using face-to-face 
physician screenings at all 65 Military Entrance Processing Centers. 
Underpinning all of this is leadership accountability.

                              safe havens
    70. Senator Collins. General Dempsey, on July 17, 2011, Maine lost 
another one of its proud soldiers, Private First Class Tyler 
Springmann, to an improvised explosive device (IED) that exploded in 
Afghanistan. Given the tremendous sacrifice that our servicemen and 
women are making, I want to be sure that the strategy currently being 
pursued can work. The President has stated the core goal of the U.S. 
strategy in Central Asia is to disrupt, dismantle, and defeat al Qaeda 
in Afghanistan and Pakistan, and to prevent their return to either 
country in the future. Earlier this year, Admiral Mullen testified that 
one of the necessary conditions to achieve that goal was to neutralize 
insurgent sanctuaries in Pakistan, but that insurgent groups currently 
operate unhindered in those sanctuaries. Yet, General Mattis recently 
testified that he does not expect Pakistan will reverse its current 
approach and eliminate the safe havens that exist there. He said that 
``satisfactory end-states are attainable in Afghanistan, even if the 
sanctuaries persist.'' Even if there is a satisfactory end-state in 
Afghanistan, how can we achieve the President's goal of preventing the 
return of al Qaeda fighters to Afghanistan and Pakistan so long as they 
can take advantage of the safe havens enjoyed by the Quetta Shura and 
the Haqqani network just across the border in Pakistan?
    General Dempsey. The loss of Private First Class Tyler Springmann 
and other servicemembers is a tragic example of the challenges our 
forces face. This challenge is exacerbated by sanctuaries in Pakistan 
that Islamabad has not always been willing or able to engage to our 
satisfaction. That said, military actions are being taken on both sides 
of the border to minimize this threat and reduce the effect of 
sanctuary in Pakistan. For their part, Pakistan's military has and 
continues to conduct disruptive counterinsurgency operations against 
mutual threats throughout the border region. Diplomatically, the U.S. 
Senior Representative to Afghanistan and Pakistan has made control and 
elimination of IED precursor materials emanating from Pakistan a 
priority in all discussion with Pakistani officials. We have also 
sought to make it clear that Pakistan is itself threatened when violent 
non-state actors are selectively permitted the free space to engage in 
hostile actions. We are also helping to build Afghan security forces 
that can contest the presence of hostile groups even if some safe 
havens persist.

                      enterprise resource programs
    71. Senator Collins. General Dempsey, DOD's Enterprise Resource 
Programs (ERP) have been the subject of significant negative GAO 
reports. DOD has spent billions on nine ERP information technology 
systems that are intended to be part of DOD's solution to its fiscal 
problems and achieve audit readiness by 2017. However, according to GAO 
reports, six of the nine ERPs have experienced schedule delays ranging 
from 2 to 12 years and five have incurred cost increases ranging from 
$530 million to $2.4 billion. DOD is currently funding non-competitive 
ERP contract-writing system pilots. I have become increasingly 
concerned with the way DOD has managed these programs. If confirmed, 
what will you do to address the ERP cost overruns, schedule slips, and 
a lack of competition as additional capabilities and functionalities 
are added to existing ERPs?
    General Dempsey. When Chairman, I will leverage multiple processes 
and forums to address these shortfalls. For example, I will rely on the 
Joint Requirements Oversight Council and the trip-wire process to 
monitor for cost growth and schedule delays in Major Defense 
Acquisition Programs. Additionally, balancing system performance and 
cost will continue to be a central goal of the ongoing Joint 
Capabilities Integration and Development process review. Program and 
portfolio affordability will be important factors in performance trade-
off decisions.

                      shipbuilding industrial base
    72. Senator Collins. General Dempsey, in their fiscal year 2012 
budget testimony, former Secretary Gates and Admiral Mullen identified 
shipbuilding as one of the two components of the defense industrial 
base that worried them, in particular. Secretary Gates stated, ``A 
number of the Navy ships that were built during the Reagan years will 
basically reach the end of their planned life in the 2020s, and where 
the money comes from to replace those ships is going to be a challenge 
. . . there are some tough choices in terms of big capabilities that 
are coming down the road.'' Do you agree with that assessment and the 
importance of sustaining the shipbuilding industrial base?
    General Dempsey. The Navy's long-term shipbuilding plan includes 
retirement of 105 ships from 2020 to 2029. During the same period, the 
Navy plans to take delivery of 94 ships. Based on the comprehensive 
strategy review and expected defense spending reductions, I will ensure 
that the Navy's shipbuilding plan continues to provide a force capable 
of meeting our national strategic objectives. Moreover, sustainment of 
the shipbuilding industrial base is carefully considered with each Navy 
acquisition decision. A healthy industrial base is critical in all 
areas of defense acquisition to ensure appropriate capacity and quality 
is available to meet our national security requirements. A robust 
industrial base should also enable competition in order to drive down 
cost and enhance affordability. For its part, the industrial base must 
be innovative and efficient if it is going to remain relevant to our 
national security needs.

                            overseas basing
    73. Senator Collins. General Dempsey, shortly after the issuance of 
the 2010 Quadrennial Defense Review, Under Secretary for Policy, 
Michele Flournoy, indicated a comprehensive review of roles and 
missions as it relates to the U.S. military's global presence would be 
forthcoming in 2012. This review is potentially critical to our 
understanding of funding overseas basing and force structure. Recent 
polls indicate the vast majority of American citizens support the 
closure of U.S. military bases overseas where there is no strong 
foreign policy objectives involved, to save the cost for maintaining 
these troops, and to protect investment and sustainment accounts for 
ships, aircraft, and other equipment. Given our increasing ability to 
project power from further distances, can you comment on whether or not 
you believe all of the overseas military bases are still necessary?
    General Dempsey. We continually assess our overseas posture to 
determine the optimal mix of forward stationed and deployed forces 
needed to meet current threats, deter conflict, and assure allies. In a 
fiscally constrained environment, we must carefully calibrate our 
forward presence and overseas activities. I will ensure the issue is 
prominent in our comprehensive strategic review.

                        phased adaptive approach
    74. Senator Collins. General Dempsey, under the phased adaptive 
approach (PAA) to missile defense, we plan to protect our forward-based 
troops, as well as our allies, in addition to protecting the U.S. 
Homeland. According to current plans, North Atlantic Treaty 
Organization (NATO) countries will commit $200 million Euros to 
establish the European PAA. The United States contributes about 40 
percent to NATO activities. This $200 million Euro commitment is much 
lower than the commitment from the Japanese, who have invested $1 
billion in the R&D for ballistic missile defense (BMD) in the Pacific. 
Our European allies, to my knowledge, have made no similar degree of 
financial commitment, even as BMD is a shared NATO goal. Do you think 
our European partners should be contributing more to this significant 
mission?
    General Dempsey. Our European partners make significant 
contributions to the NATO integrated air and missile defense mission. 
They do so by acting as host nations, providing national air and 
missile defense sensor and interceptor assets, and funding the Active 
Layered Theatre Ballistic Missile Defence Programme. This program will 
provide the command and control structure for the NATO capability to 
accept control of U.S. missile defense assets. The U.S. European Phased 
Adaptive Approach is our contribution to the NATO integrated air and 
missile defense mission. As the threat and our own capabilities evolve, 
we should continue to assess the need for additional resource 
investments by all parties.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                                 taiwan
    75. Senator Cornyn. General Dempsey, according to DOD's 2010 
report, Military and Security Developments Involving the People's 
Republic of China (PRC), ``China's military build-up opposite the 
island [Taiwan] continued unabated. The People's Liberation Army (PLA) 
is developing the capability to deter Taiwan independence or influence 
Taiwan to settle the dispute on Beijing's terms, while simultaneously 
attempting to deter, delay, or deny any possible U.S. support for the 
island in case of conflict.'' Under the Taiwan Relations Act (TRA), the 
United States is statutorily obligated to make available to Taiwan such 
defense articles and defense services ``as may be necessary to enable 
Taiwan to maintain a sufficient self-defense capability.'' What is your 
assessment of our recent record of fulfilling our obligations under the 
TRA?
    General Dempsey. It is my understanding that we have fulfilled our 
recent obligations in a way that is consistent with the legislation and 
that enhances Taiwan's self-defense capability without upsetting the 
cross-Strait balance. Of note, Taiwan's annual defense spending is 
approximately one-tenth of the Chinese defense budget. Since Taiwan 
cannot match China's arms procurement, we continue to encourage Taiwan 
to develop joint capabilities, streamline more effective and less 
costly defense programs, and seek low-cost innovative and asymmetric 
solutions that complement traditional military capabilities.

    76. Senator Cornyn. General Dempsey, according to DOD's 2010 
report, the PRC has a total of approximately 2,300 operational combat 
aircraft, including 330 fighters and 160 bombers, stationed within 
range of Taiwan. An unclassified January 2010 Defense Intelligence 
Agency report on Taiwan's air force concluded that, although Taiwan has 
an inventory of almost 400 combat aircraft, ``far fewer of these are 
operationally capable''. In your opinion, does Taiwan need more modern 
replacement fighters to maintain a credible air force?
    General Dempsey. It is my understanding that upgrades to Taiwan's 
F-16 A/B airframes will provide a stop-gap measure for the Taiwan air 
force to continue performing its basic defense functions. However, 
Taiwan will likely need to recapitalize its air force since its F-5s, 
Indigenous Defense Fighters, and Mirage airframes reach end-of-service 
life toward the end of this decade. Even then, Taiwan will still face a 
numeric disadvantage to China's air force, but the modernization of 
current airframes will allow Taiwan to maintain its current air defense 
capability.

    77. Senator Cornyn. General Dempsey, does this deterioration of 
Taiwan's air force indicate that the United States has failed to uphold 
our obligations under the TRA?
    General Dempsey. The TRA calls for the United States to make 
available to Taiwan defense articles and defense services in such 
quantity as may be necessary to enable Taiwan to maintain a sufficient 
self-defense capability. Multiple factors affect the cross-Strait 
balance beyond the specific state of Taiwan's air force. That said, it 
is my understanding that the modernization of current airframes will 
allow Taiwan to maintain its current air defense capability. We 
continue to encourage Taiwan to develop joint capabilities, purse more 
effective and less costly defense programs, and seek lower-cost 
innovative solutions to complement traditional military capabilities. 
Among these initiatives are efforts to improve the Taiwan air force's 
survivability, assist with the professionalization of Taiwan air 
force's enlisted ranks, and improve the Taiwan air force's current 
aircraft defensive capabilities.

    78. Senator Cornyn. General Dempsey, how does Taiwan's airbase 
survivability compare to other air forces in the region?
    General Dempsey. Given the nature of the missile threat posed 
against Taiwan, the survivability and operational capability of 
airbases on Taiwan are at significant risk. Taiwan is undertaking 
measures, many classified, to enhance the survivability of its airbases 
and the ability to continue operating its aircraft in case of conflict.

    79. Senator Cornyn. General Dempsey, since 2006, the Taiwanese 
Government has made clear its desire to purchase new F-16 C/Ds from the 
United States to augment its aging air force and regain dominance, or 
at least restore balance, in the airspace over the Taiwan Strait. In 
your opinion, would these additional F-16s bolster Taiwan's ability to 
conduct maritime interdiction in a blockade scenario?
    General Dempsey. Taiwan's ability to conduct maritime interdiction 
in a blockade scenario is effected by several factors to include, but 
certainly not limited to the quality and quantity of its air force. 
More important than the number of any particular airframe, is the 
ability of the airframe, its pilot, and those in support to execute 
their mission. In this respect, modernizing Taiwan's air force and air 
defense systems may be just as valuable for a range of scenarios Taiwan 
could face.

    80. Senator Cornyn. General Dempsey, if the administration denies 
Taiwan's pending request, and it becomes impossible for Taiwan to 
purchase these new F-16s, what would be the impact on Taiwan's ability 
to defend its own skies?
    General Dempsey. It is my understanding that Taiwan's older 
airframes (F-5, Taiwan's Indigenous Defense Fighters, and Mirage 2000) 
reach end-of-service-life by the end of this decade. Without 
modernization, or possibly replacement aircraft, Taiwan will face the 
challenge of performing basic peacetime defense functions with a less 
capable air force. As Chairman, I will work to ensure that we recommend 
options for the best way forward on Taiwan defense capabilities and 
requirements.

    81. Senator Cornyn. General Dempsey, what would be the impact on 
U.S. interests in the region?
    General Dempsey. The United States remains committed to engagement 
in Asia that promotes stability and access to the global commons. The 
sale of appropriate defense capabilities to Taiwan is required by law 
and can contribute to peace and stability across the Strait and in the 
region. Failure to honor our commitments may cause regional partners to 
lose confidence in the United States as a reliable security partner.

                                 china
    82. Senator Cornyn. General Dempsey, a National Ground Intelligence 
Center report that was recently declassified provides concerning 
details regarding China's development of electromagnetic pulse (EMP) 
weapons for use against U.S. aircraft carriers, as well as Taiwan's 
electronic infrastructure, in the event of any potential conflict over 
Taiwan. In your opinion, what effect would such an attack have on U.S. 
aircraft carrier operations?
    General Dempsey. The U.S. military, including the U.S. Navy, has 
prepared to withstand the effects of EMP weapons since the Cold War. 
U.S. aircraft carriers and carrier strike groups train to operate in 
nuclear and EMP attack scenarios. We will continue to monitor the 
development of Chinese military capabilities, particularly as they 
relate to anti-access/area denial capabilities and strategies.

    83. Senator Cornyn. General Dempsey, does the United States 
currently have adequate measures in place to defend against such an 
attack?
    General Dempsey. The U.S. military continually conducts extensive 
analysis, evaluation, and testing of military systems and equipment to 
ensure they are resistant to the effects of EMP weapons. Critical 
pieces of equipment are also retrofitted to be made more EMP resistant 
before they are fielded. After an EMP attack, critical infrastructure 
and communications would continue to operate, and our forces will still 
have adequate operational capability.

    84. Senator Cornyn. General Dempsey, according to DOD's 2010 report 
on China's military power, ``U.S.-China military-to-military relations 
improved in 2009, based on the commitment of President Obama and 
President Hu to deepen and improve ties, and to take concrete steps to 
advance sustained and reliable military-to-military relations.'' Given 
that the Chinese readily terminated this contact over political issues, 
as we saw in January 2010 following the Obama administration's 
announcement of its intent to sell defensive arms and equipment to 
Taiwan, what is your assessment of the overall value China places on 
this type of engagement?
    General Dempsey. The leaders of both countries have all committed 
to improving our military-to-military relationship. Though our 
relationship has only recently been renewed, the PLA has stated its 
desire for improved defense relations as well as made steps to follow 
up. For example, we have agreed to advance planning on various 
initiatives to include first ever cooperative exchanges in counter-
piracy this year and exercises in humanitarian assistance and disaster 
relief next year. We have exercised our defense telephone link several 
times this year and have agreed to more routinely use the system.

    85. Senator Cornyn. General Dempsey, how is China benefitting from 
the military-to-military relations, and what does the United States 
gain?
    General Dempsey. Greater military cooperation between the United 
States and China benefits both countries. We jointly face a complex 
international security environment and our two militaries operate more 
frequently in close proximity. Our exchanges increase opportunities for 
positive cooperation, lower the risk of miscalculation, and more 
effectively communicate our resolve to maintain peace and stability in 
the Asia-Pacific region. These exchanges provide China opportunities to 
understand the U.S. military's role in contributing to global and 
regional security, while providing the U.S. military opportunities to 
impress upon China the importance of international law and common 
safety practices in military operations. Our military-to-military 
contacts and exchanges are based on the principles of transparency, 
balance, and reciprocity.

                          defense budget cuts
    86. Senator Cornyn. General Dempsey, in his April speech on debt 
reduction, the President targeted security spending for $400 billion in 
cuts over the next 12 years, the preponderance of which seems likely to 
come from the DOD budget. However, news reports are now indicating that 
DOD is bracing for much deeper cuts, potentially reaching $800 billion 
or more over the next decade. During your confirmation hearing, in 
response to Senator McCain's question regarding defense cuts in the 
range of $800 billion to $1 trillion, you responded that ``based on the 
difficulty of achieving the $400 billion cut, I believe $800 billion 
would be extraordinarily difficult and very high risk.'' Please 
elaborate on why cuts of this magnitude ($800 billion or greater) would 
be very high risk.
    General Dempsey. We have not evaluated what an $800 billion or 
greater reduction would entail. In my judgment, cuts of this magnitude 
to defense spending would likely require us to review and possibly 
adjust our national security and military strategies. It is reasonable 
to expect our capacity to shrink, which would affect our ability to 
meet global security commitments and potentially increase strategic 
risk. I am also concerned that deeper cuts directed in a compressed 
timeline could create a hollow force, lacking the training, readiness, 
equipment, and modernization it needs to accomplish all its objectives. 
This said, as Chairman, I will work to ensure any defense cuts are made 
in a way that sustains a responsive and versatile Joint Force.

    87. Senator Cornyn. General Dempsey, in your opinion, what impact 
would cuts deeper than $400 billion have on our ability to adequately 
meet our national security requirements, maintain our Nation's historic 
military superiority, and provide the requisite resources and support 
for our soldiers?
    General Dempsey. In my judgment, cuts beyond $400 billion would 
likely require us to review and possibly adjust our national security 
and military strategies. It is reasonable to expect our capacity (size 
which equates to frequency) to shrink, which would affect our ability 
to meet global security commitments and potentially increase strategic 
risk. As Chairman, I will work to ensure any defense cuts are made in a 
way that sustains a responsive and versatile Joint Force without rival. 
I will also remain committed to sustain a strong All-Volunteer Force 
that keeps faith with our servicemembers, veterans, and their families.

    88. Senator Cornyn. General Dempsey, will it be possible for our 
military to maintain its current capabilities while absorbing $800 
billion or more in cuts?
    General Dempsey. We have not yet evaluated the implications of an 
$800 billion cut. It seems reasonable, however, to expect that cuts of 
this magnitude would not enable us to maintain our current military 
capabilities. It would likely require us to reconsider on national 
security and military strategies. As Chairman, I will remain committed 
to ensuring that any size cuts result in a strong Joint Force that 
continues to protect the Homeland and American people.

    89. Senator Cornyn. General Dempsey, in your estimation, how much 
damage would defense spending cuts of that magnitude do to our national 
interests around the world?
    General Dempsey. While we have not studied cuts of that magnitude, 
deeper cuts would impact the way we protect and promote our national 
interests around the world. As Chairman, I will work to ensure that any 
cuts do not imperil the ability of the Joint Force to protect the 
homeland and secure our national interests.

                           acquisition reform
    90. Senator Cornyn. General Dempsey, according the final report of 
the 2010 Army Acquisition Review, between 1990 and 2010, the Army 
terminated 22 major acquisition programs before completion, totaling at 
least $32 billion--which represents almost one-third of the Army's 
budget for creating new weapons. The report notes that, ``Every year 
since 1996, the Army has spent more than $1 billion annually on 
programs that were ultimately cancelled.'' Since 2004, $3.3 billion to 
$3.8 billion per year (35 percent to 45 percent) of the Army's 
Developmental Test and Evaluation funding has been lost to cancelled 
programs. In my view, this represents extremely poor stewardship of 
taxpayers' dollars. Unfortunately, this poor stewardship is not limited 
to the Army, and there are clear examples of it across DOD. In your 
opinion, what are the primary problems in the DOD acquisition process 
that have caused these program cancellations, and what can be done to 
end this decade-long trend of sinking billions of dollars into trying 
to develop weapon systems that will never be fielded?
    General Dempsey. I share your concerns about cost overruns and 
cancelled programs. I am also aware that program cancellations can stem 
from many causes to include changing national security priorities, 
overreaching requirements, immature technology, and insufficient 
attention to overall affordability at program inception. Congress has 
taken important steps in the 2009 Acquisition Reform Act and the 
Department has adopted a better buying program initiative to address 
these issues. As Chairman, I will support DOD efforts to improve 
Defense Acquisition processes within my authorities in order to develop 
the most capable and affordable Joint Force possible.

                         air-sea battle concept
    91. Senator Cornyn. General Dempsey, the Air-Sea Battle concept has 
been described by some as a new way for the Navy and Air Force to work 
together to fight future wars against major powers. In today's budget 
environment, such coordination between our Military Services is more 
important than ever. As I understand it, the Air-Sea Battle concept is 
aimed at maintaining U.S. dominance of the air and sea domains and to 
overpower any nation-state that might try to defeat our military forces 
through the use of advanced missiles, stealth aircraft, and/or a blue-
water naval fleet of its own. Please describe the importance of the 
Air-Sea Battle concept in our future operations.
    General Dempsey. The proliferation of anti-access and area denial 
strategies and capabilities by potential adversaries threatens our 
assured access to the global commons. It is a challenge of growing 
concern. Defeating these strategies and capabilities will require the 
Joint Force to better integrate core military competencies across all 
domains. Developing joint interdependencies, capabilities, concepts, 
and strategies--such as Air-Sea Battle--is an important initiative 
within the context of this overall effort.

    92. Senator Cornyn. General Dempsey, what are the implications for 
the Air-Sea Battle concept if draconian budget cuts force the Air Force 
to abandon or curtail the new long-range strike aircraft or the Navy to 
cut its number of aircraft carrier battle groups?
    General Dempsey. We are currently studying the impact of a wide 
range of potential budget cuts on the Joint Force's ability to protect 
U.S. interests around the globe. Any cuts that negatively affect our 
ability to project U.S. military power, protect our access to the 
global commons, and maintain freedom of maneuver, particularly at sea 
or in the air, must be carefully considered with respect to the 
strategic and military risks involved.

                          afghanistan drawdown
    93. Senator Cornyn. General Dempsey, on June 22, 2011, President 
Obama announced he would withdraw 10,000 troops from Afghanistan by the 
end of this year and another 23,000 by next summer, resulting in a 
complete drawdown of the 33,000 troop surge by September 2012. 
Following the President's announcement, Admiral Mullen testified to the 
House Armed Services Committee that: ``the President's decisions are 
more aggressive and incur more risk than I was originally prepared to 
accept.'' What pace of withdrawal do you believe would incur an 
acceptable level of risk?
    General Dempsey. In my judgment, the projected pace of the surge 
recovery is within acceptable risk. The recovery of the surge will be 
complete by summer of 2012. At that point, there will be about 68,000 
U.S. troops in Afghanistan. There will be greater than 70,000 
additional ANSFs fielded. If conditions on the ground change this 
judgment, I will advise the Secretary of Defense and President.

                                 libya
    94. Senator Cornyn. General Dempsey, in the early 1990s, then-
Chairman of the Joint Chiefs of Staff, General Colin Powell, laid out 
some basic guidelines for conducting effective military operations, 
which have since come to be known as the Powell Doctrine. General 
Powell stated that: ``We should always be skeptical when so-called 
experts suggest that all a particular crisis calls for is a little 
surgical bombing or a limited attack. When the `surgery' is over and 
the desired result is not obtained, a new set of experts then comes 
forward with talk of just a little escalation . . . History has not 
been kind to this approach to war-making.'' Regarding the air war over 
Libya, do you believe that a vital, U.S. national security interest was 
or is threatened there?
    General Dempsey. The stability of the region and the range of 
potential outcomes of the Arab Spring are clearly in our national 
security interest. As President Obama has stated with regard to Libya, 
``Our safety is not directly threatened, but our interests and values 
are.'' In this respect, it is consistent with our national interest to 
protect Libyan civilians in accordance with the President's policy and 
United Nations Security Council resolutions.

    95. Senator Cornyn. General Dempsey, does the United States have a 
clear, attainable objective in Libya? If so, what is that objective?
    General Dempsey. The goal of the NATO-led military effort, and the 
mandate of the U.N. resolution, is clear. The United States is 
supporting NATO in protecting the Libyan people. Forced regime change 
is not the purpose of the military mission; however, military 
operations do complement other instruments of power that are being used 
to pressure for the eventual departure of Qadhafi.

    96. Senator Cornyn. General Dempsey, how does the Powell Doctrine 
apply or not apply with regard to the Libya campaign?
    General Dempsey. The Powell Doctrine is certainly an appropriate 
source of counsel for any potential use of force. When writing about 
the use of force in Foreign Affairs (1992), it is my understanding that 
General Powell did not intend for a rigid application of his words. He 
did, however, argue that military force ``should be restricted to 
occasions where it can do some good and where the goodwill outweighs 
the loss of lives and other costs that will surely ensue.'' In my 
judgment, this is just one example of how the Powell Doctrine might be 
applicable to the NATO led effort in Libya.

                           army surface fleet
    97. Senator Cornyn. General Dempsey, the Army currently operates a 
fleet of over 100 ships, used mostly for logistics purposes. The 
vessels range from large landing ships to medium-sized and smaller 
utility landing craft, to a force of tugboats and barges. Those vessels 
are operated by over 2,000 soldiers and another 200 civilians in 
support roles. A 2010 report by Defense News stated that the Army was 
in discussions with the Navy over the potential transfer of the Army's 
watercraft mission and its vessels. In today's Joint Service, does it 
make sense for the Army to continue operating a fleet of over 100 
ships?
    General Dempsey. As Chairman, I will work to develop and align 
joint capabilities in a way that leads toward a more interdependent, 
affordable, responsive, and versatile Joint Force. The Army-Navy 
Warfighter Talks, conducted in December 2010 to address the issue you 
raise, worked toward a similar goal. As a result of these talks, the 
Services agreed to transfer the Army's share of the Joint High Speed 
Vessel program to the Navy. The objective is to optimally align Service 
core competencies for strategic movement and reduce Total Ownership 
Costs. The transfer of management oversight to the Navy does not change 
the joint character of the mission set, and the Navy-operated vessels 
will support Army missions as directed by the combatant commanders. It 
was also decided to undertake a thorough examination of the potential 
transfer of the remaining Army watercraft missions to the Navy in light 
of changing requirements and fiscal constraints.

    98. Senator Cornyn. General Dempsey, please share your view on the 
desirability of the proposed transfer of this mission and assets from 
the Army to the Navy, and provide a status update.
    General Dempsey. The Army and Navy leadership have assessed the 
potential to gain efficiency in this area while minimizing risk. They 
have determined that it may be feasible to consolidate watercraft roles 
and missions in response to changes in future global military posture. 
However, further analysis will be required to fully assess any long-
term efficiencies or costs, and identify capability gaps or overlaps 
that could result. This is not unlike other areas where we are seeking 
to gain efficiency, but doing so in a deliberate manner that does not 
compromise national security.

                          joint strike fighter
    99. Senator Cornyn. General Dempsey, the F-35 JSF will replace the 
aging tactical jet fleets of A-10s, F-16s, F-18s, and AV-8s. In 
prepared remarks to the Senate Armed Services Committee, Under 
Secretary of Defense Ashton Carter stated that ``its [F-35's] 
importance to our national security is immense. The F-35 will form the 
backbone of U.S. air combat superiority for generations to come.'' In 
the past, some major acquisition programs (such as the B-2 and F-22) 
have experienced large cost increases and other problems so significant 
that DOD has had to greatly reduce the number of aircraft ultimately 
procured. Can you comment on the importance of JSF to our national 
defense?
    General Dempsey. The F-35 is indeed foundational to our national 
security. This 5th generation aircraft will preserve our decisive 
advantage over potential adversaries for a generation. I also recognize 
that controlling cost is central to our ability to procure the 
appropriate quantity of F-35s. As Chairman, I will work to ensure an 
affordable F-35 program that meets our national security requirements.

    100. Senator Cornyn. General Dempsey, what steps will you take to 
ensure the JSF does not meet the same fate as the B-2 and F-22?
    General Dempsey. As Chairman, I will work directly with the Office 
of Secretary of Defense (OSD), the Services, and Congress to deliver 
the most affordable JSF possible. The Vice Chairman and I will rely on 
improved joint requirements and acquisition processes to regularly 
review the JSF program in conjunction with OSD. We will aggressively 
assess capability and cost trades, closely monitor cost growth through 
the trip-wire process, and participate in Departmental Boards.

                   size of general/flag officer corps
    101. Senator Cornyn. General Dempsey, during your confirmation 
hearing, Senator Webb made the following statement regarding the number 
of general officers in the Air Force: ``The Air Force has more 
brigadier generals than any of the other Services, by far. They have 
the same number of three stars. They have almost the same number of two 
stars as the Army and more than the Navy and the Marine Corps 
combined.'' According to a May report by the Air Force Times, in the 
last 7 years alone, the Air Force cut nearly 43,000 airmen but added 44 
generals. The efficiencies initiative led by former Secretary Gates 
touted that it would cut 102 general/flag officer billets. However, 
roughly 40 percent of that cut comes as a result of ending the wars in 
Iraq and Afghanistan. In your opinion, where can DOD find further 
efficiencies within its general/flag officer ranks?
    General Dempsey. As mentioned, many of the efficiencies have come 
from the elimination of joint positions associated with the transition 
of our operations in Iraq and Afghanistan. These cuts impact the 
Services by reducing the available number of joint general/flag officer 
positions. In turn, this reduces the number of such officers each 
Service is authorized to maintain. There are also Service-specific cuts 
that go beyond these joint cuts that are being considered and 
implemented. On assuming the office of Chairman, I will continue to 
examine the issue and seek opportunities for additional reductions.

    102. Senator Cornyn. General Dempsey, in light of anticipated cuts 
to the DOD budget, should the Services look at reducing their numbers 
of general/flag officers before reducing overall force structure?
    General Dempsey. As you may be aware, we have already initiated the 
reduction of 130 general/flag officer positions across DOD. The size 
and composition of the general/flag officer ranks should continue to 
face scrutiny as we shape the overall force structure.

    103. Senator Cornyn. General Dempsey, how else can we prioritize 
tooth over tail when it comes to force structure?
    General Dempsey. In my current role as Chief of Staff of the Army, 
we are examining the echelons of command as well as the size of higher 
headquarters. I will say that ``staff power'' and ``intellectual 
bandwidth'' are as important as combat power and lethal effects. As 
Chairman, I will seek the right balance.

                             military bands
    104. Senator Cornyn. General Dempsey, the fiscal year 2012 DOD 
budget request included $320 million for military bands, which many 
think are of questionable value in bolstering national security. Given 
the current budgetary crisis and impending cuts to the defense budget, 
what is your assessment of the importance of military bands?
    General Dempsey. I am a strong advocate of our military bands. My 
own 1st Armored Division Band was among my greatest heroes for their 
service in Iraq in 2003-2004. Our U.S. military bands have had a long 
and distinguished place in our Nation's history. Through ceremonies, 
national tours, public concerts, and recordings, our military bands 
continue to inspire patriotism, elevate esprit de corps, and support 
recruiting efforts. These bands have also made a significant 
contribution to preserving our Nation's musical heritage and projecting 
a positive image of the U.S. military at home and overseas. I am 
sensitive to our current budget constraints and think we can take a 
balanced approach that protects our national security priorities while 
recognizing the important contributions military bands continue to make 
to our Nation.

    105. Senator Cornyn. General Dempsey, what plans do you have to 
recommend cuts and efficiencies in this area, to ensure that our 
Military Services prioritize tooth over tail?
    General Dempsey. At this time, I am not aware of specific 
recommended cuts to military bands. However, the ongoing comprehensive 
review is looking at the entire defense structure. As Chairman, I will 
remain committed to ensuring we have a strong Joint Force capable of 
meeting our national security objectives.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                             law of the sea
    106. Senator Vitter. General Dempsey, it's my understanding that 
the Joint Chiefs of Staff and the Navy have long supported U.S. 
accession to the United Nations Convention on the Law of the Sea 
(UNCLOS). The primary claim is that U.S. membership would guarantee or 
otherwise secure the navigational rights and freedoms set forth in the 
convention. However, it is my understanding that the Navy has 
maintained its global presence despite the fact that the United States 
has remained outside of UNCLOS. Could you provide me with an example of 
a situation or operation where the Navy was unable to successfully 
complete a mission due to the fact that the United States is not a 
party to UNCLOS?
    General Dempsey. The decision not to accede to the UNCLOS has not 
prevented the U.S. Navy from successfully completing any missions. 
Since 1983, the U.S. Navy has conducted operations consistent with 
UNCLOS provisions on navigational freedoms, in accordance with then 
President Reagan's Oceans Policy. Those provisions are vital to our 
Armed Force's global mobility and must not be allowed to erode. An 
accession to UNCLOS provides the United States a stronger leadership 
voice to guide and influence future law of the sea developments instead 
of relying on UNCLOS provisions only as a matter of customary 
international law. Becoming a party to UNCLOS closes a seam with our 
partners and allies.

    107. Senator Vitter. General Dempsey, has access to a key 
international strait--such as Hormuz, Malacca, Bab el-Mandeb, or 
Gibraltar--ever been denied to the Navy due to the fact that the United 
States is not a party to UNCLOS?
    General Dempsey. The decision of the United States not to accede to 
UNCLOS has not denied our Navy access to any key international straits 
to date. For this, we rely on the regime of transit passage, a key 
provision of UNCLOS. An accession to UNCLOS would enable the United 
States to guide and influence future law of the sea developments and 
protects its key provisions, like the regime of transit passage. We 
must ensure these provisions are not eroded in order to preserve our 
robust navigational freedoms and provide our Armed Forces abroad the 
highest degree of global mobility.
                                 ______
                                 
    [The nomination reference of GEN Martin E. Dempsey, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chairman of the 
Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 152 and 601:

                             To be General.

    GEN Martin E. Dempsey, USA, 0000.
                                 ______
                                 
    [The biographical sketch of GEN Martin E. Dempsey, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of GEN Martin E. Dempsey, USA
Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy - BS - No Major
    Duke University - MA - English
    U.S. Army Command and General Staff College - MMAS - Military Arts 
and Sciences
    National Defense University - MS - National Security and Strategic 
Studies

Military schools attended:
    Armor Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    National War College

Foreign language(s): French

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Sep 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Aug 01
MG........................................  1 Sep 04
LTG.......................................  8 Sep 05
GEN.......................................  8 Dec 08
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 75..........................  May 76............  Platoon Leader, B
                                                       Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
May 76..........................  Sep 77............  Support Platoon
                                                       Leader, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
Sep 77..........................  Jun 78............  S-1 (Personnel),
                                                       1st Squadron, 2d
                                                       Armored Cavalry,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
Jul 78..........................  Jan 79............  Student, Armor
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Armor School,
                                                       Fort Knox, KY.
Apr 79..........................  Jan 80............  Motor Officer, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Jan 80..........................  Oct 80............  Commander, A
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Oct 80..........................  Jun 81............  S-3 (Operations),
                                                       1st Squadron,
                                                       10th Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Jun 81..........................  Jul 82............  Commander,
                                                       Headquarters and
                                                       Headquarters
                                                       Troop, 1st
                                                       Squadron, 10th
                                                       Cavalry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson, CO.
Aug 82..........................  May 84............  Student, Duke
                                                       University,
                                                       Durham, NC.
Jun 84..........................  Jul 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       English, U.S.
                                                       Military Academy,
                                                       West Point, NY.
Aug 87..........................  Jun 88............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS.
Jul 88..........................  Sep 89............  Executive Officer,
                                                       4th Battalion,
                                                       67th Armor, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
Sep 89..........................  May 91............  S-3 (Operations),
                                                       later Executive
                                                       Officer, 3d
                                                       Brigade, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia.
Jul 91..........................  Jun 93............  Commander, 4th
                                                       Battalion, 67th
                                                       Armor, 1st
                                                       Brigade, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
Jul 93..........................  Jun 95............  Chief, Armor
                                                       Branch, Combat
                                                       Arms Division,
                                                       Officer Personnel
                                                       Management
                                                       Directorate, U.S.
                                                       Total Army
                                                       Personnel
                                                       Command,
                                                       Alexandria, VA.
Aug 95..........................  Jun 96............  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC.
Jul 96..........................  Jul 98............  Commander, 3d
                                                       Armored Cavalry
                                                       Regiment, Fort
                                                       Carson, CO.
Jul 98..........................  Oct 99............  Assistant Deputy
                                                       Director for
                                                       Politico-Military
                                                       Affairs, Europe
                                                       and Africa, J-5,
                                                       The Joint Staff,
                                                       Washington, DC.
Oct 99..........................  Aug 01............  Special Assistant
                                                       to the Chairman
                                                       of the Joint
                                                       Chiefs of Staff,
                                                       The Joint Staff,
                                                       Washington, DC.
Sep 01..........................  Jun 03............  Program Manager,
                                                       Saudi Arabian
                                                       National Guard
                                                       Modernization
                                                       Program, Saudi
                                                       Arabia.
Jun 03..........................  Oct 04............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army
                                                       Operation Iraqi
                                                       Freedom, Iraq.
Oct 04..........................  Jul 05............  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany.
Aug 05..........................  May 07............  Commander, Multi-
                                                       National Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq.
Aug 07..........................  Mar 08............  Deputy Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL.
Mar 08..........................  Oct 08............  Acting Commander,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL.
Dec 08..........................  Mar 11............  Commanding
                                                       General, U.S.
                                                       Army Training and
                                                       Doctrine Command,
                                                       Fort Monroe, VA.
Apr 11..........................  Present...........  Chief of Staff,
                                                       U.S. Army,
                                                       Washington, DC.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Assistant Deputy Director for          Jul 98-Oct 99                   Colonel
 Politico-Military Affairs, Europe
 and Africa, J-5, The Joint Staff,
 Washington, DC....................
Special Assistant to the Chairman      Oct 99-Aug 01                   Colonel
 of the Joint Chiefs of Staff, The
 Joint Staff, Washington, DC.......
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
Deputy Commander, U.S. Central         Aug 07-Mar 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Acting Commander, U.S. Central         Mar 08-Oct 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Executive Officer, 3d Brigade, 3d      Jan 91-Feb 91        Lieutenant Colonel
 Armored Division, U.S. Army Europe
 and Seventh Army, Operations
 Desert Shield/Storm, Saudi Arabia.
Commanding General, 1st Armored        Jun 03-Oct 04  Brigadier General/
 Division, U.S. Army Europe and                           Major General
 Seventh Army, Operation Iraqi
 Freedom, Iraq.....................
Commander, Multi-National Security     Aug 05-May 07  Lieutenant General
 Transition Command-Iraq/Commander,
 NATO Training Mission-Iraq,
 Operation Iraqi Freedom, Iraq.....
Deputy Commander, U.S. Central         Aug 07-Mar 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
Acting Commander, U.S. Central         Mar 08-Oct 08  Lieutenant General
 Command, MacDill Air Force Base,
 FL................................
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Bronze Star Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Parachutist Badge
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Martin E. 
Dempsey, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Martin E. Dempsey.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff, Washington, DC.

    3. Date of nomination:
    6 June 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    14 March 1952; Jersey City, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Diane Sullivan Dempsey.

    7. Names and ages of children:
    Christopher, 32.
    Megan, 31.
    Caitlin, 28.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Veterans of Foreign Wars.
    Member, Association of the U.S. Army.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    I, Martin E. Dempsey agree, if confirmed, to appear and testify 
upon request before any duly constituted commitee of the Senate.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I, Martin E. Dempsey, agree, when asked before any duly constituted 
committee of Congress, to give my personal views, even if those views 
differ from the administration in power.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Martin E. Dempsey.
    This 6th day of June, 2011.

    [The nomination of GEN Martin E. Dempsey, USA, was reported 
to the Senate by Chairman Levin on August 2, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 2, 2011.]


NOMINATIONS OF ADM JONATHAN W. GREENERT, USN, FOR REAPPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS; AND LTG CHARLES 
 H. JACOBY, JR., USA, TO BE GENERAL AND TO BE COMMANDER, U.S. NORTHERN 
      COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND

                              ----------                              


                        THURSDAY, JULY 28, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Udall, 
Hagan, Begich, Blumenthal, McCain, Sessions, Wicker, Brown, 
Portman, Ayotte, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; and Jessica L. Kingston, 
research assistant.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christopher J. Paul, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, Brian F. Sebold, and Bradley S. Watson.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Nick Ikeda, assistant to Senator 
Akaka; Gordon Peterson, assistant to Senator Webb; Casey 
Howard, assistant to Senator Udall; Lindsay Kavanaugh, 
assistant to Senator Begich; Joanne McLaughlin, assistant to 
Senator Manchin; Ethan Saxon, assistant to Senator Blumenthal; 
Lenwood Landrum, assistant to Senator Sessions; Joseph Lai, 
assistant to Senator Wicker; Charles Prosch, assistant to 
Senator Brown; Brent Bombach, assistant to Senator Portman; 
Brad Bowman, assistant to Senator Ayotte; and Ryan Kaldahl, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee meets to consider the nominations of two 
distinguished senior military officers: Admiral Jonathan 
Greenert, U.S. Navy, the nominee to be Chief of Naval 
Operations (CNO); and Lieutenant General Charles Jacoby, Jr., 
U.S. Army, the nominee for Commander, U.S. Northern Command 
(NORTHCOM) and Commander, North American Aerospace Defense 
Command (NORAD).
    The long hours and the hard work that are put in by our 
senior military officials at the Department of Defense (DOD) 
require commitment and sacrifice not only from our nominees, 
but also from their families. We greatly appreciate the 
willingness of our nominees to carry out their new 
responsibilities and we also appreciate the support that they 
have from their families. Without that support, these nominees 
could not possibly do what they've been asked to do throughout 
their careers and what they're going to be asked to do when 
they are confirmed. Our nominees should feel free to introduce 
their family members when they make their opening remarks this 
morning.
    The nominees have impressive qualifications and suitability 
for their positions. Admiral Greenert has served as Vice CNO, 
Commander, U.S. Fleet Forces Command, Deputy Commander of the 
Pacific Fleet, and Commander of the U.S. Seventh Fleet.
    General Jacoby has served as the Commanding General of the 
Multinational Corps in Iraq, the Commanding General of ICOR, 
and the Commanding General of U.S. Army-Alaska. He has also 
served as the Commander of U.S. Southern Command's Joint Task 
Force Bravo in Honduras, which provided counterdrug support, 
and he led relief operations for Hurricane Mitch, missions that 
are directly relevant to NORTHCOM's missions.
    I would also note that he is a native of Michigan, he holds 
a master's degree in history from the University of Michigan, 
so from my perspective that seals the deal. The fact that 
Admiral Greenert's wife hails from Michigan should not hurt his 
chances, either.
    If confirmed, each of our nominees will be responsible for 
helping DOD face critical challenges. The ongoing use and 
possible future use of our military forces overseas, as well as 
the defense of our Homeland, make it critically important that 
we choose military leaders for DOD who can provide a vision for 
dealing with a number of critical issues that confront DOD.
    These challenges include balancing force structure and 
modernization needs against the costs of supporting ongoing 
operations, and to do so in an increasingly constrained fiscal 
environment.
    Those fiscal constraints are likely to get tighter as we 
deal with whatever agreement comes from the ongoing debt 
ceiling-deficit reduction discussions. The President announced 
a reduction in security funding of some $400 billion over the 
next 12 years. The actual reduction could be significantly 
greater, and if that happens this is going to amplify the 
challenges that you will face.
    Admiral Greenert would be the 30th CNO. He will face the 
difficult tasks of recruiting and retaining a quality force and 
maintaining current readiness to conduct the ongoing war on 
terrorism, while at the same time transforming the Navy's force 
structure to deal with the threats of the future in the face of 
difficult cost and scheduling problems with the Navy's major 
acquisition programs.
    Many of the ongoing challenges facing the Navy center on 
acquisition programs. As CNO, Admiral Greenert would be leading 
the Navy in defining requirements for the acquisition community 
to fill. There are some programs that have been proceeding 
reasonably well, such as ramping up the two attack submarines 
per year.
    But too many acquisition programs are mired down in 
problems which, unless resolved, will make it difficult, if not 
impossible, to reach our goal for the size of the fleet.
    NORTHCOM is responsible for the defense of the Homeland and 
for providing defense support to civil authorities in response 
to domestic natural or manmade disasters. Its area of 
responsibility includes all of North America, including Mexico. 
General Jacoby would be dual-hatted as the Commander of NORAD, 
our binational command with Canada, which has the mission to 
provide aerospace warning, aerospace control, and maritime 
warning for North America.
    When confirmed, General Jacoby would face a number of 
significant challenges. These challenges include working with 
the Mexican military to help them defeat the transnational 
criminal organizations that are causing high levels of violence 
in Mexico, which pose a threat within Mexico and to the 
security of our southern border.
    As part of the mission of providing defense support to 
civil authorities, NORTHCOM must work closely and cooperatively 
with other Federal agencies and with all the States on plans 
and coordination for emergency response to domestic disasters, 
including potential incidents involving weapons of mass 
destruction.
    General Jacoby will need to work with the State Governors 
and National Guard Forces to improve the capabilities of State 
and Federal military forces to work together to support the 
Governors' needs for disaster assistance.
    NORTHCOM is also the combatant command responsible for the 
operation of the Ground-Based Midcourse Defense (GMD) system, 
whose mission is to help defend the Homeland against the threat 
of a limited ballistic missile attack from nations such as 
North Korea and Iran. The GMD system has had two consecutive 
flight test failures, most recently last December. We look 
forward to hearing General Jacoby's views on what we need to do 
to make the system work reliably and effectively, including 
adequate testing.
    We all look forward to hearing your testimony this morning 
on these and other issues and the kinds of issues that you are 
going to be facing in your new assignments.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I welcome Admiral Greenert and General Jacoby and their 
families and I congratulate them on their nominations. Admiral 
Greenert, in a nomination hearing on Tuesday for General Martin 
Dempsey, nominated to be the next Chairman of the Joint Chiefs 
of Staff, we discussed the likelihood of deep cuts in future 
defense budgets and the uncertainty about how these cuts will 
affect defense personnel, equipment, readiness, and 
capabilities.
    General Dempsey expressed his appreciation for the role of 
sea power in our national defense strategy and the Navy's 
enduring role in protecting our economic and national security 
interests in vast and vital areas, such as the Asia Pacific. 
Indeed, with the increasing importance of this geopolitical and 
maritime space, the roles and responsibilities of the Navy are 
becoming even more critical.
    General Dempsey also acknowledged, however, that if 
adequate funding is not provided by Congress, DOD strategy will 
have to change to reflect the resources that are made 
available. Clearly, each of the Services stands to be affected 
by the budget decisions made in the days ahead. But in my 
judgment, the Navy, with its capital-intensive shipbuilding and 
aircraft procurement and maintenance accounts, could be the 
Service that would be most adversely affected.
    This puts huge additional pressure on the Navy to design 
and produce on time and on budget, reliable, battle-ready 
ships, submarines, and aircraft, a task in which I'm sad to say 
the Navy's recent track record has been less than admirable. If 
the Navy's performance in the design and procurement of its 
weapons systems doesn't improve, I'm worried that the Service 
could lose the commitment and support of American taxpayers and 
Congress, which would be a long-term disaster for the Navy and 
our Nation.
    While I'm confident you will be confirmed, Admiral, you 
will have many difficult challenges ahead. The Littoral Combat 
Ship (LCS) heads the list. I continue to think the Navy 
misjudged in going forward with a dual-source block buy 
strategy for the LCS and that the true life cycle costs of 
buying and sustaining both LCS variants will be considerably 
more than what the Navy has estimated.
    In recent days we have learned that one of the newly 
commissioned LCS ships has experienced unacceptable cracking of 
its steel hull, while the other variant suffers from aggressive 
galvanic corrosion that will require repair and backfitting to 
ensure the safety and durability of its aluminum hull. I'm sure 
you share my frustration that following an $8 billion taxpayer 
investment in the LCS program, the Navy continues to lack a 
single ship that is operationally effective or reliable.
    Similarly with the Joint Strike Fighter (JSF) program, 
we're all too familiar with its continued cost overruns and 
schedule slips. After nearly 10 years in development and a $56 
billion investment to date, the program has produced a handful 
of test and operational aircraft. We've recently learned that 
the government's share of the most recent cost overruns for the 
first 28 production aircraft stands at three-quarters of a 
billion dollars, in addition to a requirement for an additional 
33 months and $7.4 billion as a result of recent program 
restructuring decisions.
    The overall estimated cost of the program, $383 billion, 
and an estimated sustainment cost of $1 trillion, make it the 
most expensive acquisition program in history. I remain deeply 
concerned about the affordability of this program and I don't 
think the taxpayers and Congress will have a lot more tolerance 
for additional cost increases and schedule slips.
    The same is true with the LPD-17 San Antonio-class of 
amphibious ships. Plainly, the Navy faces many difficult 
challenges. But if we can be confident in one thing without a 
doubt, it is the performance and commitment of our sailors and 
that of their families over the last 10 years of constant 
conflict. They give us reason to redouble our efforts to solve 
these problems and they make us proud every day, and they 
deserve better. So do the taxpayers.
    General Jacoby, I congratulate you on your nomination. I'm 
interested in what your priorities will be if confirmed to 
ensure NORTHCOM is able to accomplish its missions and navigate 
an increasingly complex security environment.
    The current situation in Mexico should be of concern to all 
of us, and I'm interested in your assessment of what steps need 
to be taken to strengthen the partnership between our two 
nations to combat the increasingly capable and ruthless 
transnational criminal organizations. President Calderon 
continues to act with great courage in this fight and he has 
achieved significant successes with the capture or killing of 
several powerful cartel kingpins. However, the situation 
remains dire. More than 35,000 Mexicans have lost their lives 
in drug-related violence since 2006, and this violence 
continues to rage in many areas in Mexico, threatening the 
safety and security of Mexican and American citizens alike.
    Finally, I'm interested in your views on an increasingly 
grave threat to both American military and economic security, 
the growing proliferation of attacks in cyberspace. There isn't 
a week that goes by without media reports of major intrusion or 
compromise of cyber networks in the United States, both 
military and commercial.
    We need to focus our attention and act with a real sense of 
urgency. I think we are long overdue in developing an 
understanding of how to respond to cyber attacks and when to 
shift from defense to offense. I've been and remain greatly 
concerned about the lack of a clear strategy that establishes 
coordinated, unambiguous command and control relationships that 
have real capability to effectively respond to cyber attacks 
within DOD.
    In short, I don't think we have answered a host of 
fundamental questions involving cyberspace, despite recent 
efforts. I look forward to hearing the role you believe 
NORTHCOM should play in protecting the Homeland against our 
cyber threats and what must urgently be done to ensure the 
roles and responsibilities for protecting the United States are 
clearly defined and established both within DOD and across the 
interagency framework.
    Thank you both for your willingness to serve in these 
important leadership positions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Let me now ask you to give us your opening statements, if 
you would. Let me first call on Admiral Greenert.

   STATEMENT OF ADM JONATHAN W. GREENERT, USN, NOMINATED FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Greenert. Thank you very much, Mr. Chairman, and 
good morning. Senator McCain, distinguished members of the 
committee: it is indeed an honor, a great honor, to appear 
before you as the nominee to be our Navy's CNO. I am thankful 
for the confidence placed in me by President Obama and 
Secretaries Panetta and Mabus and Admiral Roughead.
    But I'm most grateful for those people behind me who for 
years have given me great support, understanding, and 
inspiration, especially my wife Darlene, who is with us today, 
as you've acknowledged earlier, Mr. Chairman. We've been 
married for 30 great years. Darlene has been steadfast and, for 
heaven's sakes, she's been patient. She's a caring Navy spouse 
and the greatest mother three children could ever have.
    Joining us also today is my daughter, Sarah, who's really 
the apple of my eye, and my son, Bryan. He's obviously the 
lieutenant behind us. He's just completed a 4-year tour as a 
Navy surface warfare officer, serving on two destroyers in 
Japan. Regrettably, Mr. Chairman, our oldest son, Jonathan, 
could not be here. He too serves our Navy, as a Navy Criminal 
Investigative Service special agent, and he's currently 
underway in the Western Pacific on the aircraft carrier George 
Washington as their special agent.
    More than anything, I am grateful for the opportunity to 
continue serving as a sailor in the U.S. Navy. To me there is 
nothing more meaningful and honorable than to wear the cloth of 
our Nation and serve alongside today's magnificent Navy men and 
women. They are committed, they are tough, adaptive, and 
innovative, and therefore they deserve wisdom, clear direction, 
and understanding from their leadership.
    The sailors we send into harm's way today could not do what 
they do without the support they receive from their families at 
home. As the Vice Chief, I have been honored to meet many 
thousands of Navy family members in an effort to understand how 
our institution can serve them better. I am grateful for their 
dedication, their resiliency, and their selflessness.
    Today, 50 percent of our ships are underway and 43 percent 
are deployed. We have over 12,000 sailors on the ground in U.S. 
Central Command (CENTCOM) and about 10,000 sailors on 
individual augmentee assignments. Mr. Chairman, these numbers 
were almost identical to the numbers that Admiral Roughead 
reported to you almost 4 years ago. Your Navy remains ready. It 
is agile and it's global, and it has been relentlessly busy. 
Operating tempo has been high. Our missions have evolved, and 
changes are occurring in our world, particularly the Middle 
East, at a pace we couldn't previously imagine.
    In spite of all that has taken place around us, one key 
element endures and I believe will endure: we must assure the 
security and freedom of the seas in all the domains, so that 
the economies of the world can flourish. To do this, I believe 
our Navy must be forward in order to influence events, assist 
our allies and partners, and provide our Nation an offshore 
option.
    If confirmed, my priorities will be to remain ready to meet 
the current challenges today; build a relevant and capable 
future force; continue to take care of our sailors, our 
civilians, and their families, and institute a manning strategy 
that recruits and nurtures a motivated, relevant, and diverse 
future force.
    Meeting these challenges in today's budgeting environment 
will not be easy. Going forward, we must be clear-eyed in 
communicating what we will and what we won't be able to provide 
the Nation in the future.
    I recognize there will be rough seas ahead, but with the 
help of the Navy and DOD leadership and the support of this 
committee, I am confident we will succeed.
    Mr. Chairman, if confirmed as the next CNO, I will give you 
and the magnificent sailors in our Navy my best efforts. You 
rightfully expect it, they absolutely deserve it. I look 
forward to your questions. Thank you very much.
    Chairman Levin. Thank you very much, Admiral.
    General Jacoby.

 STATEMENT OF LTG CHARLES H. JACOBY, JR., USA, NOMINATED TO BE 
 GENERAL AND TO BE COMMANDER, U.S. NORTHERN COMMAND/COMMANDER, 
            NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    General Jacoby. Chairman Levin, Senator McCain, 
distinguished members of the committee: it is a great honor and 
distinct privilege to appear before you today. I'm honored and 
humbled that President Obama has nominated me to be Commander 
of NORTHCOM and NORAD. I thank all of you for this opportunity.
    Thank you, sir, for your kind words about our families. 
Today I'm joined by my wonderful wife, Grace, my faithful 
partner of almost 22 years, who was raised in an Army family 
and originally hails from Puerto Rico. As a retired U.S. Army 
officer, Grace knows and understands the sacrifices of our 
servicemembers and their families, and has worked tirelessly on 
their behalf. She has also raised three great young men. I know 
she'll be prepared to give me a comprehensive after-action 
review at the completion of this hearing. Thank you, 
sweetheart. [Laughter.]
    Chairman Levin. One of the benefits of marriage. 
[Laughter.]
    General Jacoby. Yes, sir. [Laughter.]
    I'm very proud of my three sons. Mike, a middle schooler, 
and Vic, a high schooler, are both at camps today; and our 
eldest, CJ, is a third-year West Point cadet, currently 
completing his summer duties. I'm blessed with a terrific Army 
family. I thank the committee for inviting them here today.
    Mr. Chairman, over the past year, Admiral Sandy Winnefeld 
has led the NORTHCOM and NORAD team with distinction. His 
leadership, vision, and drive will leave a legacy of continuous 
improvement which, if confirmed, I hope to build upon.
    Before fielding your questions, I'd like to emphasize just 
two points. First, as a leader who has devoted much of his 
service life to combatting threats outside of the United 
States, I can think of no greater responsibility now than 
leading our military in defense of the Homeland, while 
providing support to our citizens at the Federal, State, and 
local levels in times of their greatest needs. I view the 
NORTHCOM and NORAD mission simply as a sacred trust.
    Second, in my current role as Director for Strategic Plans 
and Policy on the Joint Staff, I observed no other command and 
certainly no other combatant command in which cooperation with 
and support for partners is more important than with NORTHCOM 
and NORAD. If confirmed, I will reinforce the critical 
importance of a close partnership and teamwork with, first and 
foremost, the National Guard, the Reserve, other combatant 
commanders and Service Chiefs, the Department of Homeland 
Security (DHS), and all other interagency, State, local, and 
nongovernmental partners, as well as our close friends and 
neighbors, Canada, Mexico, and the Bahamas.
    I look forward to working with the members of this 
committee and your superb staffs. Your countless visits to 
support our troops in theater, many of which I personally 
benefited from in Afghanistan and Iraq, along with your 
steadfast commitment to providing for their requirements and 
your unprecedented support for our families, are greatly 
appreciated.
    I look forward to your questions.
    Chairman Levin. Thank you very much, General.
    First, some standard questions that we ask of all of our 
nominees. Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Greenert. I will.
    General Jacoby. Yes, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views even though those views differ from the 
administration in power?
    Admiral Greenert. I do.
    General Jacoby. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions that appear to assume to outcome of the 
confirmation process?
    Admiral Greenert. No, sir.
    General Jacoby. No, sir.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record, in hearings?
    Admiral Greenert. Yes, sir.
    General Jacoby. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Jacoby. Yes, sir.
    Admiral Greenert. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Jacoby. Yes, sir.
    Admiral Greenert. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Greenert. Yes, sir.
    General Jacoby. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Jacoby. Yes, sir.
    Admiral Greenert. Yes, sir.
    Chairman Levin. Thank you.
    We'll have a 7-minute round for our first round. Admiral, 
let me start with you. You appeared at a House Armed Services 
Committee hearing earlier this week, I believe, to discuss 
total force readiness and much of the discussion, 
understandably, centered around potential budget reductions. I 
believe that, in an exchange with Mr. Forbes, you pointed out 
that combatant commander requirements already exceed the Navy's 
ability to meet those requirements.
    Can you outline for us what are the greatest risks to the 
Navy if there are large budget reductions forthcoming?
    Admiral Greenert. Mr. Chairman, right now the fleet is 
stressed. We are operating at a tremendous operating tempo and 
we are seeing some indicators of decreasing readiness. So I 
think we're operating at a pretty high rate today and we are at 
a limit.
    If given a large budget reduction that we had to take, when 
I look at the global force management in the future that we 
might have to meet, I can't reconcile that without some change 
to that global force management plan. Our options are limited. 
We can't hollow the force, so the future force has to be ready. 
As I said before, we have to keep the faith and trust our 
sailors. We can't go to our personnel. Our Navy hasn't changed 
much since 2008 in our manning level and our manning plan.
    If we reduce force structure, that would exacerbate the 
problem we already have. If we reduce modernization, that is 
going to the shipbuilding and aircraft accounts, I'm concerned 
about the industrial base.
    So we have a conundrum here and I believe that this needs 
to be a strategic approach to such a large reduction.
    Chairman Levin. Cost increases in our shipbuilding have 
meant that we're spending more and not making much progress in 
building the size of the fleet. The next major shipbuilding 
program over which the Navy has an opportunity to control 
requirements to keep the ship affordable is the Ohio-class 
replacement, the SSBN-X.
    Admiral, are you supportive of the design decisions that 
the Navy has made on the SSBN-X program to constrain costs?
    Admiral Greenert. Yes, sir, I am.
    Chairman Levin. The committee's been concerned, very 
concerned, with the cost growth in the F-35 JSF program. At a 
hearing earlier this year, several members asked: What are the 
alternatives to the F-35 program if it is just unaffordable, we 
just run into new trouble, and we just don't see it working out 
the way we planned and the way it needs to work out?
    Some of the witnesses said we just have no alternative, 
which of course troubles many of us. Admiral, what are the 
options for modernizing tactical aviation facing the Navy and 
the Marine Corps?
    Admiral Greenert. Mr. Chairman, the F-35 provides us a 
fifth generation strike fighter, which is really a measure of 
its stealth, its capability. The F/A-18 Hornet, our primary 
strike fighter right now, is a fourth generation fighter. We 
have no alternative in the Navy and Marine Corps with regard to 
an aircraft that will bring that capability.
    If for some reason we were unable to bring the F-35 in, we 
would have to look at the capabilities, the weapons that we 
could produce and design for the Hornet, a more standoff 
weapon, so that we could get a better output from that.
    Chairman Levin. Admiral, in your written response to the 
advance policy questions you talked about the U.S. accession to 
the Law of the Sea Convention. Can you tell us whether or not 
you believe it's important to our national security to join 
this treaty?
    Admiral Greenert. Mr. Chairman, I believe it is important 
to the national security. The legal certainty and the public 
order that it would bring, our ability to have a dialogue in an 
international forum for issues such as freedom of navigation, 
excessive exclusive economic zone claims, and also our 
continental shelf issues, such as in the Arctic, I think would 
be enhanced greatly by our accession to the Law of the Sea.
    Chairman Levin. Thank you.
    General, the last two flights, as I mentioned, of the GMD 
system failed and the Missile Defense Agency (MDA) is working 
to understand and fix the problem, including plans to conduct 
two flight tests to verify any fix. Until that happens, MDA has 
suspended production of the interceptor-kill vehicles. Do you 
support the need to take the time necessary to fully understand 
and to fix the problem, to conduct all necessary testing to 
confirm the fix and to demonstrate that the system works?
    General Jacoby. Senator, yes, I do.
    Chairman Levin. General, last year NORAD conducted the 
first annual exercise with Russia, called Vigilant Eagle, in 
which both countries practiced passing control for monitoring 
and escorting a simulated hijacked aircraft into each other's 
air space. Can you tell us whether that exercise was a success 
and whether you believe that these kind of cooperative 
exercises enhance U.S. security, and if so, how?
    General Jacoby. Senator, I believe Vigilant Eagle was a 
success. It is an annual exercise. It is a practical exercise. 
As we saw in this last run-through with the Russian Federation, 
there really was benefit in that transparency that took place 
in the handoff of a hijacked aircraft, that really builds trust 
and confidence in a relationship and contributes to U.S. 
national security interests.
    So with the Russian Federation, of course, we work with our 
eyes wide open. But there are areas of cooperation that are 
mutually beneficial and I think Vigilant Eagle is a perfect 
example of how we can both gain in the security realm by 
cooperating together.
    Chairman Levin. Would that possible cooperation also be or 
might be helpful in the area of missile defense with Russia in 
terms of enhancing our security, particularly against Iranian 
missile threats?
    General Jacoby. Senator, I know there are important 
discussions going on right now in seeking ways to cooperate 
with the Russian Federation on missile defense. I know 
Ambassador Rogozin just recently visited NORTHCOM-NORAD command 
centers. I know that we've been in extensive dialogue with 
them.
    So again, finding places and venues and capabilities where 
we can cooperate with the Russian Federation can contribute not 
just to both nations' mutual security needs, but regional 
security needs as well.
    Chairman Levin. Thank you, both.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses again.
    Admiral, I don't know if you had a chance to see the Wall 
Street Journal this morning and other periodicals. The headline 
is ``China Says Carrier Won't Alter Naval Strategy.'' The first 
paragraph says: ``China's defense ministry said its first 
aircraft carrier would be used for research experiments and 
training and would not affect its defensive naval strategy, in 
an apparent attempt to ease regional concerns that the vessel 
could be used to enforce territorial claims.''
    I have never viewed an aircraft carrier as a method to 
employ a defensive strategy. I don't believe that's what 
carriers are intended to. I'm curious of your impression. We've 
known that this aircraft carrier was in the phase of being 
refurbished for a long period of time. What's your view of the 
impact of this very significant move on the part of the 
Chinese?
    Admiral Greenert. Senator, I believe it's clearly a 
prototype for what they ultimately want to have, which is a 
better aircraft carrier, indigenously built and tailored to 
their needs.
    Senator McCain. What do you think of the overall meaning of 
it?
    Admiral Greenert. By virtue of being an aircraft carrier, 
it's typically offensive. It's made to project power.
    Senator McCain. What is your view of the significance as 
far as what you think the Chinese thinking is?
    Admiral Greenert. The Chinese say they built it for 
defensive measures. There's some question as to what their 
intent is. It's hard to gauge their intent. They could use it 
for defensive reasons, but as we just stated, this is a power 
projection.
    Senator McCain. When you look at their statements about the 
South China Sea, about economic zones that are theirs, the near 
conflicts they've had with their neighbors, their assertion 
about the oil resources out in the South China Sea, and their 
new research ship that just reached new depths that exceeded 
that of the United States, doesn't all this put together a 
picture for you?
    Admiral Greenert. It puts together a picture of a navy that 
is interested in expanding its operations to blue water.
    Senator McCain. Thereby extending its influence.
    Admiral Greenert. Yes, sir.
    Senator McCain. Thank you.
    In a House hearing yesterday, in response to a question 
about the possibility of drastic defense budget cuts ranging 
from $400 billion to $1 trillion over the next 10 years, you 
said: ``Without a comprehensive strategy review, a fundamental 
look at what we are asking our forces to do, without a change 
in activity, we won't be able to meet the global force 
management plan today.''
    As Vice Chief, are you taking part in DOD's comprehensive 
strategic review?
    Admiral Greenert. We are not in the major deliberations of 
that. We are providing some data, but we have been told we 
would be part of any final decision process in this 
comprehensive review.
    Senator McCain. How would you view a $400 billion, $600 
billion, $800 billion, or $1 trillion cut in defense over the 
next 10 years? Do you have an assessment of what the impact 
that would be on our most capital-intensive Service?
    Admiral Greenert. Given that size of budget reduction and 
assuming it was apportioned to the Navy in accordance with our 
current ratio, we cannot go hollow, Senator, so we have to 
sustain our current force. Our personnel levels are not an area 
we can go to make further reductions. We've done about the best 
we can with efficiencies. There's some more overhead.
    My concern is the cuts at that level, we'd have to go into 
force structure and modernization, and my concern is about the 
industrial base and our shipbuilding plan.
    Senator McCain. You are already concerned about the 
downward trend in ship maintenance funding and commensurate 
rise in ship inspection failures; is that true?
    Admiral Greenert. I am, yes.
    Senator McCain. It's already a serious problem.
    Admiral Greenert. Yes, sir. We are making some progress, 
but it remains a concern.
    Senator McCain. I won't go into my rant about the F-35 or 
the LCS. I will spare you that. But I am deadly serious about 
the fact that the costs of both of these programs are simply 
unsustainable. I'm not the only one that holds that view. So I 
strongly recommend that you give both the LCS and the JSF your 
serious attention as you assume your new serious 
responsibilities.
    General, give us an assessment of the situation in Mexico 
vis-a-vis the drug cartels. Is the situation improving, is it 
deteriorating, is it the same? Is it an area of concern for 
ranging from American tourists to the threats of increased 
violence along our border?
    General Jacoby. Senator, Mexico and the United States have 
tremendous shared mutual interests, security interests as well 
as other interests, along our border, but specifically with 
regards to countering the transnational criminal threats that 
are shared by both countries. We both share responsibilities to 
counter those threats.
    Senator McCain. I'm curious about your view of the 
seriousness of those threats and whether we are making progress 
or if it's basically stagnant or if it's a standoff between the 
cartels and the Mexican Government. I'd like to have your 
assessment of that.
    General Jacoby. Yes, Senator. It's my understanding that 
progress is being made on both sides of the border. I know the 
Mexican Government and security forces have made courageous 
political, moral, and physical commitments to countering the 
transnational criminal organizations. I know that we have made 
progress. I know there is much more work to do.
    I think recently the President has released an executive 
order declaring a national emergency regarding the threat of 
transnational criminal organizations, highlighting them as an 
unusual and extraordinary threat to the U.S. foreign policy, 
our economy, and our security. I think that that accurately 
describes the seriousness of the threat.
    Senator McCain. The Government Accountability Office has 
recently stated that the border is approximately 44 percent 
under operational control. Would you agree with that 
assessment?
    General Jacoby. Senator, DHS is responsible for those 
assessments. I don't know of any counter to that report in 
terms of percentages under control or not under control. I know 
that it is a long border. I'm sure there is much work to be 
done along the border and at different places.
    So if confirmed, it would be a priority for me to work 
closely with DHS to understand and to see how NORTHCOM could 
support DHS and other agencies in gaining effective control of 
the border.
    Senator McCain. I can tell you one thing and that is the 
use of Predator aircraft, unmanned aerial vehicles (UAV), has 
been extremely effective and helpful. I think you would agree.
    General Jacoby. Yes, Senator, I'd agree. We have found UAVs 
to be a multiplier across the board in all DOD endeavors and 
certainly can assist in law enforcement operations as well.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service and for the service 
of your families. The chairman indicated he had a threshold 
level, which is some connection to Michigan. I too have a 
threshold level and you've both passed it. Admiral Greenert 
commanded a submarine and General Jacoby commanded the First 
Battalion, 504th Parachute Infantry Regiment. So I'll ask a few 
questions, but I think you've already done fine.
    Admiral, both the chairman and Senator McCain have brought 
up the issue of the maintenance issues that are confronting the 
Fleet. Some reports suggest that some destroyers, for example, 
will not reach their 30-year expected life or be able to be 
extended to a 40-year life. With these budget pressures, one of 
your most obvious responses is to keep the ships at sea. So can 
you comment generally in terms of will that be a first 
response? Will that require additional money for maintenance? 
Are you making any progress there? Because, as much as we all 
like to see additional platforms, you very well might have to 
curtail that, which obviously implies keeping the ships at sea 
longer.
    Admiral Greenert. Senator, the foundation of reaching our 
30-year shipbuilding plan and our inventory is to make sure 
that the ships that we have reach their expected service life. 
To do that you have to do the right maintenance at the right 
time. That was something we didn't have right until recently. 
We were in our surface ship maintenance, we would fully fund a 
year's worth of maintenance and still not get the right things 
done in drydocking or otherwise.
    We've made some good progress and the key now is we have to 
schedule it, allow them the time to do the maintenance, so that 
we can ensure ourselves that the ships make their full life.
    Senator Reed. Is part of this recent response turning more 
responsibility over to the Navy and to the crews, rather than 
contractors? Is that part of it, too?
    Admiral Greenert. Senator, that's part of it, because first 
of all, it's good for the crew. It's good for a crew to 
understand their ship, to understand how to operate it, and do 
that maintenance. That's what the commanding officers of the 
ship have said: We need more time to do that maintenance and 
get to know the equipment, and when you operate it right it'll 
last.
    Senator Reed. Admiral, the chairman also mentioned the 
Ohio-class program, which is in the stages of design 
finalization requirements. One of the issues that I've 
addressed with Admiral Roughead is given the pressures on the 
shipbuilding budget, that this, as well designed and as 
efficient as you can build it, is going to be an expensive 
proposition.
    There's been ongoing discussions, because of its strategic 
role, of having some costs shared by DOD, not exclusively the 
Navy. Are those discussions still underway?
    Admiral Greenert. Yes, sir, they are. If confirmed, I 
intend to try to continue those discussions. In the 2020s we 
will have a phenomenon, an unfortunate one, where many of the 
ships built in the 1980s will now come due for retirement. 
That's right when the Ohio replacement comes in. So we'll work 
very hard to make sure we got the requirements right. We'll 
work very hard with the acquisition community to drive that 
cost down.
    But we may, even so, need some assistance in the 
shipbuilding budget if we're going to meet our goals.
    Senator Reed. The British Government has still fully 
committed to buying the Ohio-class ship, which should help, 
perhaps not decisively, but should help in terms of the cost 
allocation; is that correct?
    Admiral Greenert. Yes, Senator. They are all in on the 
missile compartment agreement that we had.
    Senator Reed. Thank you.
    General Jacoby, and I'll ask the Admiral also to comment, 
one of the most interesting developments in your theater of 
operations is the fact that the Navy predicts by 2020 that the 
Arctic Ocean will be navigable for commercial traffic at least 
1 month a year and perhaps longer, which opens up a whole new 
space that you and the Navy have to operate in.
    Can you comment upon your views as to what we should be 
doing now and what we can anticipate?
    General Jacoby. Yes, Senator. In the most recent unified 
command plan, 2011, NORTHCOM received the responsibility for 
Arctic Ocean areas. It's shared with U.S. European Command 
(EUCOM) as EUCOM picks up country responsibilities on the other 
side. But NORTHCOM is the advocate for the requirements and for 
the capabilities that will be needed as the Arctic becomes 
increasingly open.
    The Secretary has directed that NORTHCOM ensure the 
peaceful and responsible opening of the Arctic, with a special 
emphasis on future transit lanes and potential choke points. I 
think there is also quite a bit of emphasis that this should be 
an international effort and that our efforts in the Arctic 
should strengthen international agreements and a sense of the 
peaceful opening of the Arctic.
    So if confirmed as the NORTHCOM commander, it will again be 
about building relationships and ensuring that, eyes wide open, 
we do the right things in the Arctic as it opens up over time.
    Senator Reed. Admiral, 20 years ago, I don't think the CNO 
was thinking, how do I support a unified commander with ships 
in the Arctic Ocean for the transit of commercial vessels. So 
any thoughts?
    Admiral Greenert. Yes, Senator. I believe we need to think 
about the Arctic as we think about other attributes when we 
bring in new programs. It's going to be a fact of life that we 
may have to operate up there. I'm taken back to when we first 
started operating in the Persian Gulf. That was a unique 
experience. We didn't plan this into our equipment, so we had 
air conditioning issues and other issues with dust, et cetera.
    There are unique challenges in the Arctic and I think it 
needs to become an attribute when we consider requirements. We 
also need to consider it in our concept of operations (CONOPS) 
when we talk about what a ship needs to be able to do. Chem-bio 
and those kind of things; cold weather is another thing and it 
needs to be built into the CONOPS.
    Senator Reed. Thank you very much, sir.
    General Jacoby, you have significant responsibilities with 
respect to National Guard and Reserve. There is an ongoing and 
very healthy debate about whether these units' primary 
responsibility should be for DOD missions or for homeland 
security missions, given the fact that they are State militias 
as well as federalized forces that deploy constantly on the 
orders of the President of the United States.
    Can you give us an idea of where you are in terms of that 
debate?
    General Jacoby. Yes, Senator. I think the verdict is in. 
They're important for both. They're integral to both. As the 
Commander of Multi-National Corps-Iraq and deputy in 
Afghanistan, we could not have accomplished our mission without 
the effective, properly trained, equipped, and manned Reserve 
component forces, primarily National Guard, that we fought 
side-by-side with over the last 10 years.
    So as we look at the challenges in the future and balancing 
our requirements against resources, the National Guard and the 
Reserves become even more important in our calculus.
    Just as well in the Homeland, Senator. They're absolutely 
essential. The Quadrennial Defense Review (QDR) and just good 
common sense have driven us to look to the Guard for more of a 
role in things like chemical, biological, radiological, and 
nuclear consequence management. I think that is the proper 
place for that to grow, and of course as the NORTHCOM 
Commander, if confirmed, one of the things that I'll advocate 
strongly for are the resources that the Guard and Reserve need 
to accomplish those missions, and I look forward to that 
opportunity.
    Senator Reed. Thank you both, gentlemen, for your service.
    Thank you.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral, I enjoyed having the opportunity to participate 
with you last week as we honored the outstanding 
servicemembers. Although you are not from the State of Maine, 
and don't have the ties that you do to the home States of other 
members, I'm confident that, based on our discussion, that you 
fully understand the critical role that the great State of 
Maine plays for our Navy, with Bath Iron Works and also the 
Portsmouth Naval Shipyard and a Survival, Evasion, Resistance, 
and Escape training facility as well. I look forward to having 
you come to Maine to see all of those firsthand.
    I want to follow up on the questions that the chairman and 
the ranking member asked you about shipbuilding and your 
testimony earlier this week. You testified that the Navy would 
need approximately 400 ships to meet all of the combatant 
commanders' demands, a number which is 115 ships more than are 
in our Fleet today. So that is of great concern to me.
    Could you be more specific on what are the unmet 
requirements of the combatant commanders as they relate to Navy 
ships?
    Admiral Greenert. Senator, in my statement I was referring 
to an unconstrained combatant commander input, which is what we 
get in DOD as part of the process. For those that aren't 
validated, if you will, by the Joint Staff and make the global 
force management plan, they tend to be theater security 
cooperation activity in theaters outside of U.S. Pacific 
Command and CENTCOM. Those tend to be our centers of operations 
for the global force management plan.
    These are important operations. They help preclude 
conflict. They help build partnership capacity. But, 
regrettably, in our force structure limitations we can't meet 
some of those.
    Senator Collins. Among those is there a significant gap, 
for example, in ballistic missile defense (BMD), anti-piracy 
efforts? Are those some of the unmet needs of the combatant 
commanders?
    Admiral Greenert. BMD is a limit, Senator, but it is really 
based on the amount of force structure, writ large, we have. It 
isn't as if we have a destroyer that would be available for BMD 
and we don't provide. We provide the combatant commanders all 
those that are capable today.
    Counter-piracy, we do as much as we can in counter-piracy 
operations, particularly in the CENTCOM and the U.S. African 
Command areas of responsibility.
    Senator Collins. General, the Senate Homeland Security and 
Governmental Affairs Committee, on which I am the ranking 
member and former chairman, did an in-depth investigation into 
the failed response to Hurricane Katrina. One of our 
astonishing findings was that NORTHCOM had so little 
situational awareness about what was going on in Louisiana and 
Mississippi.
    I know that there has been considerable progress made since 
that time. Military support to civil authorities during a major 
disaster relief is absolutely critical to effective response 
and recovery, as I'm sure you're aware. What are your goals for 
strengthening the cooperation between NORTHCOM and the Federal 
Emergency Management Agency, the State National Guard units, 
and the State emergency managers? Specifically, will you 
continue the program to train dual-status commanders?
    General Jacoby. Senator, I think you've nailed it right on 
the head in terms of situational awareness. That's been my 
personal experience in large-scale disasters. It's really a 
challenge to know exactly what's happening to you and to gain 
that. I think under Admiral Winnefeld's leadership it's my 
understanding that great strides have been made in improving 
its ability to see and understand what the requirements are, 
and more importantly, to anticipate those requirements. That's 
another part of the question you asked. I think it's about 
building strong, cooperative partnerships and effective 
relationships prior to an incident, so you're not exchanging 
business cards after the hurricane strikes; you're doing it 
beforehand.
    That comes down to trust and confidence, and trust and 
confidence have been built by Admiral Winnefeld in a way that I 
think is unprecedented. Reflecting that is the initiative by 
the Council of Governors on dual-status commanders. I think 
it's a tremendous and overdue initiative. It's something that's 
been tried and worked before in special, national special 
security events, and I think that it will serve us well in 
times of disasters in the future. If confirmed, I will continue 
to put energy and power behind the back wheels of that program 
as best I can, supporting State and local authorities.
    Senator Collins. Thank you. I look forward to working with 
you to advance that goal.
    Admiral, I want to talk further with you about 
shipbuilding. Admiral Roughead said many times that he 
considered 313 ships to be the absolute minimum that is really 
needed for the Fleet. There are other studies, such as the QDR 
and the independent, bipartisan Perry-Hadley panel, that 
suggest that the number really should be in the neighborhood of 
346 ships.
    What is your judgment on the minimum number of ships that, 
unconstrained by budget, we should have in our Fleet?
    Admiral Greenert. Senator, I believe that the 313-ship 
floor remains the right number to deliver the capability needed 
to meet the challenges in the 2020 timeframe.
    Senator Collins. Finally, and my time has expired, one way 
that we can reduce the cost per ship is to increase the rate of 
procurement. We've seen that in the past with the DDG-51 
program. In fact, at one point when DDG-51 contracts were being 
awarded, at a rate of three per year, it saved nearly $800 
million.
    Do you have any thoughts on whether we would be able to 
increase the procurement rate and thus lower the cost per ship?
    Admiral Greenert. Senator, at every opportunity we will 
pursue multi-year procurement of a DDG-51. As you said, it's an 
efficient way. You get economic order quantity. It's good for 
the builder, it's good for the Navy. As we balance resources 
across the shipbuilding portfolio and all accounts, we'll be 
looking for that opportunity.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for being here.
    Admiral, I look forward to working with you. Colorado is 
landlocked, but there are certainly important developments in 
the world that will be under your purview. I note that a book 
titled ``Monsoon,'' which I think you've probably seen--and 
General Jacoby talked about this the other day--presents a 
fascinating way, an insightful way, of looking at the Indian 
Ocean and that part of the world, in which we're very involved. 
I look forward to carrying on those conversations with you. 
Thanks for your willingness to serve.
    If I might, I'd like to turn to General Jacoby and talk 
about NORTHCOM. We have been well-served by your predecessors, 
General. We had a chance to talk about their accomplishments 
and successes the other day. Thank you for taking the time to 
come by and see me.
    Would you just touch on your top priorities and concerns as 
you begin to take a look at the command you're going to assume 
here in the near future?
    General Jacoby. Senator, as I look across the portfolio of 
the NORTHCOM Commander, it really consists of three groupings: 
defense support for civil authorities in case of natural and 
manmade disasters; defense of the Homeland; and security 
cooperation with our neighbors. In all of those mission areas, 
complex relationships are the key to effectiveness, 
particularly in support to civil authorities and defense of the 
Homeland.
    There are many stakeholders in the comprehensive defense of 
the Homeland and support to civil authorities. So without 
delving immediately into a set of things to do, it's my 
understanding and as I've watched Admiral Winnefeld command so 
effectively, it's really building trust and confidence in those 
relationships, building effective partnerships, ahead of the 
problem, that will allow NORTHCOM to play its critical 
supporting role in most of those activities.
    Of course, the defense of the Homeland is the 
responsibility of the NORTHCOM Commander. But so much of the 
rest of the mission set folds into that and supports that 
mission that really, I think, getting down to business means 
rolling up your sleeves and paying attention to the critical 
partners that are required to really effectively support and 
defend our people and its interests.
    Senator Udall. Let me build on those comments, as well as 
those of Senator Collins. You talk about creating those 
relationships beforehand. We talked about the dual-status 
command opportunity and Senator Collins just brought it up as 
well. I just want to underline my support for working with the 
Guard, particularly those Guard leaders, the State adjutants 
general (TAG), who know their home States, who know those 
relationships in the civil and the military world.
    I just really encourage you to move in every way possible 
to firm that up and take advantage of those relationships. I 
know that's your intention, but I want to work with you and 
really make that happen.
    General Jacoby. Thank you, Senator.
    Senator Udall. If I could, let me turn to cyber. Would you 
share your thoughts on where we are, and talk a bit about the 
discussion we're having about kinetic and nonkinetic responses; 
how do you determine which is most appropriate? I'd appreciate 
it.
    General Jacoby. Senator, like members of this committee and 
senior leaders across the military, we are recognizing the 
cyber domain as being critical to our national security. Within 
the realm of DOD, we rely heavily on the cyber domain for 
something as significant and fundamental as command and 
control, but also for all the supporting infrastructure that 
makes DOD run and supportive of our national security 
interests.
    So it is an absolute requirement that we become effective 
in that domain and that we have the right strategies, the right 
policies, and the right authorities to conduct the full range 
of activities required in the cyber domain for now and in the 
future.
    For NORTHCOM specifically, the NORTHCOM responsibilities 
lie primarily in the physical domain. The technical side is 
really a comprehensive issue that involves the lead with DHS, 
but a very close partnership with the U.S. Cyber Command and 
U.S. Strategic Command. NORTHCOM's role will be to not only 
protect critical physical infrastructure outside DOD, if 
requested by local and State authorities, but also DOD 
facilities as well.
    Then in the event of an incident that would certainly have 
some kind of physical consequences, NORTHCOM would then go into 
its mode as a supporting element of providing DOD resources in 
support of civil authorities that are dealing with the 
consequences of such an incident. I think that all of us can 
imagine pretty significant consequences as a result of a 
deliberate cyber attack.
    Senator Udall. I think we have more work to do on the 
civilian side with the vulnerabilities, but also strengths. 
Again, I look forward to working with you in that regard.
    Admiral, I want to turn to China. I'm sure you're familiar 
with the piece that Admiral Mullen penned recently. I thought 
he had some interesting insights into how we interact with 
China. I'm somebody who thinks we ought to communicate, 
collaborate, and compete with China. We ought to be careful, 
though, about getting ourselves into conflicts with China that 
involve the use of force.
    Would you share any of your thoughts on that relationship? 
Then in particular, a piece of good news is what we're doing in 
the Gulf of Aden. Sino-American efforts there to counter piracy 
I think maybe present a model that we might move forward.
    Admiral Greenert. Senator, I think Admiral Mullen had it 
pretty much exactly right. We need to continue the dialogue. 
It's a long, grinding affair, but in my experience in the 
Pacific, especially at Seventh Fleet, I found that we can make 
some headway. We can't be naive.
    What I found was, especially in special mission ships 
operating in and around China, an understanding of a 
proportional response. I think we have an opportunity with the 
desire of both nations for a peaceful resolution of the Korean 
Peninsula. I think we should leverage that. You've already 
mentioned the piracy. So there's a few areas that I think we 
can leverage and continue on. But we can't be naive. We have to 
be clear and deliberate.
    Senator Udall. Well put.
    Thanks again for your service. I look forward, 
particularly, General, to having you out in Colorado with your 
great wife. So looking forward to it. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Admiral, what's the current strike fighter shortfall?
    Admiral Greenert. The predicted current strike fighter 
shortfall for the Navy will be 65.
    Senator Brown. Is it your opinion that the Navy needs 28 
Super Hornets in fiscal year 2012 to alleviate that shortfall?
    Admiral Greenert. With the 28 Hornets in 2011, that would 
be the shortfall, Senator.
    Senator Brown. So the cost of a Super Hornet is about $54 
million and, just to kind of pick up a little bit on what 
Senator McCain didn't want to talk about, the JSF right now is 
about $132.8 million. Do you think that the Super Hornet and 
getting those would be the plan B, the safe hedge against 
further slips in growth costs of the F-35 JSF for your 
purposes?
    Admiral Greenert. Senator, that would get us a temporary 
measure for the strike fighter shortfall. But I go back to the 
requirement for fifth generation. Eventually we need to move 
ahead in capability to the fifth generation, that stealth, that 
ability to deliver the range and the weapon capacity.
    Senator Brown. First of all, congratulations to both of you 
for, obviously, having this opportunity, and I look forward to 
voting, as well as probably everybody up here, for your 
confirmation.
    General, what sort of relationship will you have with the 
Chief of the National Guard Bureau (NGB) in terms of 
coordination between NORTHCOM and NGB? Are there any 
improvements that you think we can make?
    General Jacoby. Senator, if confirmed, it will be a top 
priority to develop a relationship, an effective and a strong 
trusting relationship with NGB. I've watched General McKinley 
with great respect over the last year. He provides invaluable 
assistance and advice to the Joint Chiefs of Staff and to the 
NORTHCOM Commander. I've watched the current NORTHCOM 
Commander, Admiral Winnefeld, forge those bonds, develop those 
relationships that allowed them to make these bold initiatives 
like the dual-status command opportunity.
    So if confirmed, I'll commit to you that I will continue to 
develop those relationships and have that strong, trusting 
working partnership that's required for support to the States 
and the civil authorities and for the defense of the Homeland.
    Senator Brown. In your view, how and when will dual-status 
commanders be utilized?
    General Jacoby. Senator, in the past we've proven the 
concept. Dual-status commanders have worked effectively in 
support of national special security events. So this leap 
forward is saying, why do we need 6 months to put in place a 
dual-status commander? Why can't we do that in advance?
    So the training program, the designation in advance of 
dual-status commanders, and the marrying up of dual-status 
commanders with a deputy from the other authority, I think 
those are tremendous initiatives that need to carry forward, 
and I think that can be used across a broad spectrum of support 
to civil authorities in response to incidents around the 
country. It makes a lot of sense. It's about unity of effort.
    Senator Brown. When you're dealing with the Mexican-U.S. 
border, and the use of guardsmen, some of the concerns are the 
fact that they don't have the ability to actually defend 
themselves, like we would in a war situation. I would argue 
that what's happening down there is pretty darn close to being 
a war, a war on drugs, and a form of terror.
    What's your position as to giving them the authority to 
protect themselves when it comes to life and death?
    General Jacoby. Senator, I'm not familiar with the exact 
rules of engagement or the arrangements that have been made for 
the guardsmen that are serving in a terrific manner along our 
southwest border. I know that the States have requested that 
and have implemented that program, and the Guard's mobilized 
very effectively to support it.
    I also know that DHS is training agents to eventually 
replace those guardsmen. I would say that, as just a matter of 
professional opinion, any time we put a soldier, sailor, or 
marine in harm's way, we need to make arrangements for their 
personal security.
    Senator Brown. Thank you, sir.
    Admiral, just getting back to you, you said you predict 
that there's a 68-strike fighter shortfall. Why is that a 
prediction?
    Admiral Greenert. It's when we take into account the number 
of hours on an airframe that we have today, hours flying by 
tail number, and look at operations and extrapolate it out.
    Senator Brown. The usual that we've talked about.
    Admiral Greenert. It's the throughput, yes, sir.
    Senator Brown. One final question. The Navy's business case 
analysis of its dual LCS award strategy indicated that it can 
demonstrate overall cost savings of around $1 billion. Is that 
still accurate?
    Admiral Greenert. Senator, I would like to take a look at 
those numbers and get back to you on the precise number.
    [The information referred to follows:]

    Yes, the cost savings generated by the Littoral Combat Ship award 
of the dual block buy included savings of approximately $1 billion 
(Then Year) which is directly attributable to the dual award versus the 
original down select strategy. This number is still an accurate 
representation of the savings. This strategy is assessed to achieve 
overall procurement savings of $2.9 billion when compared to the 
Department's fiscal year 2011 President's budget Future Years Defense 
Program through fiscal year 2016 for 20 Littoral Combat Ships.

    Senator Brown. Great. Thank you, sirs.
    Mr. Chairman, thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Sessions.
    Senator Sessions. Thank you.
    Congratulations to both of you. We appreciate your service 
and value that tremendously. We have a magnificent military and 
as we go through the financial challenges that we all face we 
want to be sure that we keep the most magnificent military in 
the world, and I trust that you will help us achieve that, and 
also cost savings wherever they can be achieved.
    General Jacoby, as NORTHCOM Commander, you will be the 
person to pull the trigger if we were to have an incoming 
missile attack. You have the GMD system and other systems that 
are on the drawing boards. I am a strong believer that the GMD 
system we have presently will work to protect the country. I do 
believe that we need to enhance its kill vehicle to be more 
sophisticated, and that's being worked on, although we did have 
a defect in that in a test failure, which will mean we'll have 
to take a little longer and cost more money to work that out.
    My first question to you is: Will you tell us and commit to 
us that you'll master that program and will keep us advised on 
any shortfalls or problems that occur and will work to ensure 
that we properly spend the money to deploy the system that 
we've invested substantially in over several decades?
    General Jacoby. Senator, yes, I will.
    Senator Sessions. Will you give us your best military 
judgment when asked about that?
    General Jacoby. Senator, if confirmed as the commander 
responsible and accountable, I will.
    Senator Sessions. You've had some experience with the 
National Guard and you told me yesterday your respect for that 
institution. Would you share with us your understanding of the 
partnership between Active Duty and the Guard and how that can 
benefit the Nation?
    General Jacoby. Yes, Senator, I will. It's been my 
privilege to serve side-by-side with guardsmen from my days as 
a second lieutenant out in the woods at Fort A.P. Hill, VA, on 
annual training, right up until last year in command of Multi-
National Corps-Iraq, where tens of thousands of guardsmen 
served side-by-side with Active Forces in the accomplishment of 
a single mission.
    It's also been my privilege to serve with guardsmen around 
the world in support of humanitarian assistance and disaster 
relief, particularly in Central America and South America. So I 
have an abiding respect and admiration for the Guard. They 
bring special talents to every endeavor and they make special 
and unique sacrifices, as do their families, when we call upon 
them, both in their home States and abroad, to serve the 
Nation.
    So I believe that this is all about working together. I 
think it's about taking advantage of unique skills and 
opportunities. I believe it's about responding locally first 
and then piling on as required. So there is a very special 
supporting role that NORTHCOM can provide State Governors and 
TAGs, and I think that in order to be the most effective in 
doing that you have to have that relationship with the Guard.
    I think exercising, training, and fighting together, those 
are the keys to building those relationships and bonds that you 
can't break.
    Senator Sessions. I agree. I know you'll be working with 
the 167th Theater Support Command out of Alabama, and I know 
they look forward to that, and I hope and believe you'll have a 
positive relationship.
    Admiral Greenert, we're at 285 ships in the Navy today. The 
requirement is for 313. The CNO previously called that a floor 
for the Navy. We'll have to work hard to get there. I believe 
that is a reasonable amount for the Navy and hope that we can 
be able to support you maintaining that.
    I know you were asked earlier about the LCS. They're just 
beginning to be produced and the plan calls for 55 of those to 
be a part of that Fleet. I understand the personnel required to 
man the ship is only about 40. How do you see that in terms of 
being able to help us achieve the Fleet size we need with a 
cost improvement as compared to conventional ships that we now 
have in service?
    Admiral Greenert. Senator, I had the pleasure of spending 
an overnight on the Freedom and I went from stem to stern on 
the Independence, and I am very impressed with the potential 
that those ships will bring. They have speed, volume, agility, 
and the ability to adapt. They are coveted by Special Forces. 
The Marine Corps wants to get involved as we are putting 
together packages.
    So with the mission modules, with anti-submarine warfare, 
with mine warfare, and surface warfare mission modules, the LCS 
will be a key and essential part of our future fleet. We just 
have to bring them in on time, budget, and schedule.
    Senator Sessions. Compared to the other ships that would be 
most comparable to it, they would be a lot more expensive and 
require a lot more personnel to operate, do they not?
    Admiral Greenert. That would be correct, yes, sir. The 
closest thing that I know of to the LCS is the National 
Security Cutter. It has a different mission, but nonetheless 
costs a little bit more, the cutter, and its crew is larger 
than the LCS.
    Senator Sessions. The DDG-1000 or -51s, some of their 
missions could be reduced, and they're substantially more 
expensive and have much larger crews; is that not correct?
    Admiral Greenert. That's correct.
    Senator Sessions. I think this is a smart Navy move. I 
remember when Admiral Clarke proposed it, and it came up when I 
was chairman of the Seapower Subcommittee. I thought it was a 
good step in the right direction. I will acknowledge that some 
of those ships now will be built in Alabama, so I'm watching it 
closely. But I do believe it was a good idea then as a cost-
cutting, flexible, more mobile Navy capability with much varied 
capabilities.
    With regard to the corrosion matter that I think Senator 
McCain asked you about, I've looked into that. I don't know if 
you've had a chance to. I've talked to DOD people. It does 
appear that they checked them from stem to stern for corrosion 
and other problems. They found a bit of corrosion.
    For any ship that's in the oceans, corrosion is always a 
problem, is it not? Do you believe that when launching a ship, 
you wouldn't be surprised to see some corrosion problem appear; 
is that correct?
    Admiral Greenert. It has happened in the past. It is not a 
new problem, corrosion. As you said, with the turbulence of the 
water, any metal in sea water, you have that threat of 
corrosion.
    Senator Sessions. We've looked and talked with DOD 
officials and, while it may be this ship that's in the water 
may cost $1, $2, $3 million to fix that problem, once it's been 
identified there are techniques that can be employed for the 
new ships ongoing that would avoid that problem at a much, much 
more modest cost; is that correct?
    Admiral Greenert. That's correct, Senator.
    Senator Sessions. I just feel that you have a good ship 
there. I appreciate Senator McCain because he's going to be on 
top of it, and we should be on all our procurements. Your feet 
will be held to the fire. The contractors and the Navy will be 
held to the fire. But I don't think that this is a huge 
problem. It does not jeopardize the program financially or 
technologically, and I do believe that the LCS will be cheaper 
to operate and be a step forward for the Navy as we strive to 
create the 300-plus-ship Navy that we'd like to have.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, General and Admiral, for your extraordinary, 
very distinguished service to our country, and thank you for 
your willingness to serve in the future. I apologize that I 
missed some of your testimony because of my appearing at other 
committee hearings. But I think I was here for probably some of 
the most important part, where you thanked your families, and I 
want to join in thanking them and recognizing their service to 
our country as well.
    In that spirit, Admiral, let me ask you my first question, 
which really centers on family support. I noted in your 
testimony your very important reference to the need for 
``adequate oversight and sufficient funding'' for these 
programs. You say that you ``remain open to initiatives 
designed to further evolve existing programs and look for 
innovative ways to help our sailors and families become more 
resilient and ready to meet the enduring demand for Navy 
forces.''
    In that spirit, I would like to suggest perhaps to both of 
you that there really is a need for more family support, 
particularly in the employment area, where spouses are 
concerned, and where professional credentialing requirements 
are imposed that may limit employment for members of families 
at those bases where they move frequently, as you know much, 
much better than I, and career options are frequently blocked 
for frequently relocating military spouses.
    I'm sure you're familiar with this problem and I don't need 
to belabor it for you. But to the extent that we can help on 
this committee with that issue, certainly I would like to do 
so. One means of doing so might be to have an individual at 
bases responsible for those credentialing or professional 
licensing issues.
    But beyond that, perhaps, Admiral, you could speak to the 
issue of how family support more specifically can be provided 
to our Navy and perhaps the Navy as a model for the other 
Services.
    Admiral Greenert. Senator, I appreciate your offer of 
support. We have a Department-wide, joint effort in 
credentialing of spouse skills. We have, I believe, eight 
States where we have gone straight to the governments and the 
Governor in the case of the chairman, to form a coalition who 
will agree to accept the credentialing of our military spouses.
    We're working very vigorously on this and will be very 
vigilant. It's a joint effort and we're really mimicking the 
Army method and model to do that.
    I believe that family programs are the foundation for the 
support of the family, and without a strong family the sailor 
can't do what he or she needs to do. I'm committed, if I am 
confirmed, to ensure those programs are properly programmed and 
budgeted and that they execute properly and we share best 
practices.
    Senator Blumenthal. Thank you.
    General, if you could address that same question I'd 
appreciate it.
    General Jacoby. Senator, I really thank you and the 
committee for taking this on. We are really finding that we've 
been testing the All-Volunteer Services here over the last 10 
years, and we're discovering their strengths and we're 
discovering things that we can continuously do better.
    One of the things that we've discovered is how critical 
families are. When we ask soldiers, sailors, airmen, marines, 
and our civilians to deploy over and over and over again in 
support of our national security interests, we're also asking 
their families to make tough commitments.
    I'm especially grateful for your consideration of the 
challenges that come from moving, and particularly true for the 
young families that are moving and young spouses that are 
seeking employment, and oftentimes that employment is central 
to running the household. So those initiatives are very, very 
important. I applaud the efforts and I thank all that are 
moving those family programs into the base, and I can tell you 
as a recipient and as a commander across my experience here 
during the last 10 years of conflict we have gotten better and 
better with the help of Congress.
    So thank you, sir.
    Senator Blumenthal. Another area where I found your written 
testimony very compelling was on the issue of better treatment 
for our wounded warriors, particularly those suffering from the 
less visible wounds of war, traumatic brain injury (TBI), and 
post-traumatic stress. If you could expound perhaps on some of 
the specifics, where I know that both the Navy and the Army are 
seeking to address those issues, which are not new to this 
conflict, but perhaps newly discovered in their importance and 
their priority.
    Admiral Greenert. Senator, I think we've made some strides. 
We need to continue to pursue the ability of our medical people 
to detect the potential for TBI in the field. If somebody gets 
bonked or has what might be perceived as a concussion, to be 
able to detect that and to document it and get that person off 
line and recognize it.
    Following up at the completion of a tour of duty, to be 
sure there are people who may suffer from post-traumatic 
stress, that we do the proper post-deployment health 
assessment; and particularly for our reservists, that those 
that feel different, they may have an issue, that we keep them 
on active duty, take care of them, do psychological outreach. I 
think that's a program that has done us well.
    Post-deployment returning warrior weekends, people get 
together, talk about how they feel, what's going on, they get 
great referrals there.
    Lastly, for the Navy we have what we call Navy Safe Harbor. 
When an individual is wounded, ill, or injured, combat or 
otherwise, they enter the Navy Safe Harbor. They're a member of 
Navy Safe Harbor until they choose to leave, go back to full 
duty, and voluntarily leave Safe Harbor, or they transition to 
a new lifestyle out of military service and their disability 
evaluation system is complete.
    Senator Blumenthal. My time has unfortunately expired and I 
may be one of the last of your questioners today. But again, I 
want to thank you for your service. I want to particularly 
support your observation, Admiral, in your written testimony, 
that ``An attack submarine force level below 48 will increase 
the risk of gaps in our coverage for indications and warnings 
of potential hostile actions, delay or reduce the arrival of 
submarines critical to the war fight, and potentially allow an 
adversary to create and maintain a safe haven.''
    I think that is a very powerful and eloquent statement in 
support of the kind of submarine force that we need. Again, I 
offer my strong support.
    So thank you for being here and thank you for your service, 
and I look forward to working with you. I have no doubt that 
you'll both be confirmed.
    Thank you.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    I just have a few questions for the second round and then 
if any other Senator wants to add to that they should come by.
    General, I've asked the Admiral about the question of 
whether the United States should join the Law of the Sea 
Convention. NORTHCOM is going to have new responsibilities for 
the Arctic. Can you tell us what your views are about whether 
the United States should join the Law of the Sea Convention?
    General Jacoby. Senator, I believe we should.
    Chairman Levin. Can you tell us why?
    General Jacoby. Senator, I think that when we look at the 
global commons in all of its domains, particularly at sea, it's 
important that the commons are disciplined, that there are 
international standards, and that those standards are agreed to 
across the international community. It's hard to sit at the 
table with any moral authority or standing when you're not a 
member of that treaty.
    It's my understanding as well that we had significant input 
in the design of it, and so I think our friends, allies, 
neighbors, and the rest of the community that travels the 
global commons would benefit from our ability to influence 
outcomes by being a member.
    Chairman Levin. Thank you.
    You've been asked, General, about the cyber security issues 
and the growing threats of cyber attacks and the growing number 
of cyber attacks. You indicated in your prehearing questions 
that DHS is the lead Federal agency for the cyber security of 
the Nation and that NORTHCOM would operate in support of DHS.
    Can you expand just a bit on that? What is the 
relationship, if any, between the NORTHCOM mission to protect 
critical infrastructure and its cyber security mitigation role?
    General Jacoby. Senator, NORTHCOM would play a supporting 
role in mitigating consequences of a cyber attack. To that end, 
close coordination with DHS is a requirement.
    Where we have critical infrastructure associated with cyber 
elements on DOD property, then NORTHCOM would play a critical 
lead role in defending that or protecting that, with the 
Services, in protecting that infrastructure. Then, upon 
request, if there are Federal properties that require 
additional assistance in their protection, NORTHCOM would play 
a supporting role.
    But across a wide variety of potential impacts on our 
critical infrastructure, NORTHCOM could be called on to provide 
support to civil authorities in mitigating the results of a 
cyber attack. I think when you pull the thread on what could 
happen if there was a significant cyber attack on our 
electrical grid or other types of infrastructure that has not 
just maybe local, but regional implications, then you can see 
where a response of some significance might be required.
    Chairman Levin. Thank you.
    We want to thank you both again and your families for your 
service. We're going to hope to get these nominations and other 
pending nominations acted on by the committee yet this week. 
That's our goal, and then to get you and the others confirmed 
next week, if not late this week. That's our hope and, even 
though there are some wild things going on in Congress these 
days, these nominations I think will not only be confirmed, but 
will, when people do realize the importance of these 
nominations and coming together on a bipartisan basis in 
support of our military efforts and our military families and 
people who wear our uniforms, these nominations are going to 
have a settling effort on the environment here in Congress.
    So that's our goal, and I will close with that optimistic 
note, and again with thanks to both of you.
    [Whereupon, at 11:07 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Jonathan W. Greenert, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff 
(CJCS). They have also clarified the responsibility of the military 
departments to recruit, organize, train, equip, and maintain forces for 
assignment to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols has served us well, but in the past 20 
years the security environment has changed significantly and a review 
is worthy of consideration.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I will work closely with the Secretary of 
Defense and Secretary of the Navy if I see need for specific 
improvement.
                             relationships
    Question. Section 5033 of title 10, U.S.C., discusses the 
responsibilities and authority of the Chief of Naval Operations (CNO). 
Section 151 of title 10, U.S.C., discusses the composition and 
functions of the Joint Chiefs of Staff (JCS), including the authority 
of the CNO, as a member of the JCS, to submit advice and opinions to 
the President, the National Security Council, or the Secretary of 
Defense. Other sections of law and traditional practice, also establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the CNO to the following 
offices:
    Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense (DOD). 
As a Service Chief and member of the JCS, the CNO is a military adviser 
to the Secretary of Defense, particularly regarding matters of naval 
warfare, policy, and strategy.
    Question. Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, on occasion, serves as 
acting Secretary in the absence of the Secretary. During these periods, 
the CNO's relationship with the Deputy Secretary will essentially be 
the same as with the Secretary. The Deputy Secretary is also 
responsible for the day-to-day operation of DOD. If confirmed, I will 
endeavor to interact regularly with him and provide him with my best 
possible professional military advice and the same level of support as 
I would the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, to include the 
Services, in the functional areas under their cognizance. If confirmed 
as CNO, I will respond and reciprocate. If confirmed, I will use this 
exchange of information as I communicate with the CJCS and provide 
military advice to the Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The CNO is a member of the JCS and, as such, works with and 
through the Chairman in the execution of duties. Along with the other 
Service Chiefs, I will be a member of the JCS tasked with the 
responsibility for actively reviewing and evaluating military matters 
and offering professional military advice to the President, National 
Security Council, and Secretary of Defense.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. When functioning as the acting Chairman, the Vice 
Chairman's relationship with combatant commanders is that of the 
Chairman. Also, the Vice Chairman has the same rights and obligations 
as other members of the JCS. If confirmed, I would exchange views with 
the Vice Chairman on any defense matter considered by the JCS. The Vice 
Chairman also heads or has a key role on many boards that affect 
readiness and programs and, therefore, the preparedness of naval 
forces. If confirmed, I will establish a close relationship with the 
Vice Chairman on these critical issues.
    Question. The Secretary of the Navy.
    Answer. The CNO is responsible, under the Secretary of the Navy 
(SECNAV), for providing properly organized, trained, and equipped 
forces to support combatant commanders in the accomplishment of their 
missions. In addition, the CNO assists the SECNAV in the development of 
plans and recommendations for the operation of the Department of the 
Navy. The Navy enjoys a productive, collaborative environment within 
the Department, and if confirmed, I will work closely with the SECNAV.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the principal assistant 
to the SECNAV and is first in line of succession. The Under Secretary 
performs such duties, and exercise such powers, as the Secretary shall 
direct. If confirmed, I look forward to establishing a close 
relationship with the Under Secretary and to working with him to 
achieve the Secretary's goals.
    Question. The Assistant Secretaries of the Navy.
    Answer. The Assistant Secretaries of the Navy work with the Under 
Secretary to achieve the Secretary's goals. Like the Under Secretary, 
the Assistant Secretaries perform such duties, and exercise such 
powers, as the Secretary shall direct. If confirmed, I will work with 
the Assistant Secretaries to achieve the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel of the Navy serves as legal advisor to 
the Department of the Navy and performs such functions as the SECNAV 
shall direct and as necessary to provide for the proper application of 
the law and effective delivery of legal services within the Department. 
If confirmed, I will work closely with the General Counsel to achieve 
the Secretary's goals.
    Question. The Judge Advocate General of the Navy.
    Answer. Under 10 U.S.C. Sec. 5148(d), the Judge Advocate General 
(JAG) of the Navy performs duties relating to any and all Department of 
Navy legal matters assigned to him by SECNAV. The JAG provides and 
supervises the provision of all legal advice and related services 
throughout the Department of the Navy, except for the advice and 
services provided by the General Counsel. It is important that the CNO 
receive independent legal advice from his senior uniformed judge 
advocates. If confirmed, I will work closely with the JAG and seek the 
JAG's legal advice.
    Question. The Commandant of the Marine Corps.
    Answer. A unique historical and operational relationship exists 
between the Navy and the Marine Corps. Many of our capabilities, 
programs, and personnel issues are inextricably linked. Our forces 
deploy together, and both must be ready on arrival. If confirmed as 
CNO, my relationship with the Commandant of the Marine Corps must be 
exceptionally close and I will be committed to making every facet of 
the Navy-Marine Corps team stronger.
    Question. The Chief of the Navy Reserve.
    Answer. Under 10 U.S.C. Sec. 5143, the Chief of the Navy Reserve 
serves on the staff of the CNO and is the principal adviser on Navy 
Reserve matters to the CNO and is the commander of the Navy Reserve 
Force. The Chief of the Navy Reserve has an essential role in advising 
CNO of Navy Reserve capabilities alignment to Navy's Total Force 
mission and operations. If confirmed, I am committed to working with 
the Chief of the Navy Reserve to continue and enhance the vast progress 
and Total Force synergies we have achieved.
    Question. The Chiefs of Staff of the Army and Air Force.
    Answer. Our Armed Forces must work together to recognize each 
other's strengths and to complement each other's capabilities. We must 
achieve and maintain synergy in warfare, training, and procurement to 
ensure each Service contributes optimally to joint and combined 
operations. If confirmed, I am committed to working with my 
counterparts to enhance joint interoperability and other aspects of the 
joint relationship in order to improve the warfighting capabilities of 
the United States.
    Question. The combatant commanders.
    The CNO's responsibility as a Service Chief is to provide properly 
organized, trained, and equipped forces to the combatant commanders to 
accomplish their military missions. If confirmed, I will work to foster 
close working relationships with the unified and specified combatant 
commanders.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next CNO?
    Answer. The major focus of the next CNO must be to maintain current 
readiness and provide ready, capable forces; to define and deliver a 
relevant naval force for the future; and to ensure we continue to 
attract a motivated, high-quality and diverse force of sailors and 
civilians. The CNO's enduring leadership covenant is to take care of 
those who serve today, including our wounded, ill and injured, and 
their families. The overarching challenge remains balancing priorities 
in a fiscally-constrained environment.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will remain committed to warfighting 
readiness to ensure we remain agile, capable, and ready forward. I will 
continue to employ our Fleet Response Plan while seeking to re-
establish a sustainable level of operations consistent with our force 
structure. We must adapt our deployment models to ensure the viability 
of both current and future readiness, which involves reaching the 
expected service lives of our ships and aircraft at reasonable cost.
    In light of budget realities, our acquisition programs will face 
increasing pressure; therefore, it is more important than ever to 
meticulously review requirements throughout the acquisition process. We 
will stay in lockstep with the acquisition community and joint partners 
and be willing to change, adapt, and rescope to meet evolving threats. 
I intend to partner with the Commandant of the Marine Corps in 
establishing the finest naval force attainable within fiscal limits; a 
Naval Force ready to respond today to today's crises--anytime, 
anywhere. I also plan to remain open, transparent and collaborative 
with our fellow Services and OSD in efforts to seek cost savings while 
ensuring our Navy remains strong, effective and relevant. Internal to 
Navy, we will continue ongoing efforts to eliminate redundant 
processes, overhead, and costly infrastructures, as well as identify 
and adopt business best practices as standards for all.
    I intend to be unwavering in our obligation to take care of sailors 
and their families through sustained program oversight and support. 
They are the Navy's foundation. Attracting and retaining a diverse, 
high-quality Total Force will require innovative ways to communicate 
with the youth of our Nation. Once aboard, we will provide 
opportunities for individuals to rise as far as their talents and 
ambitions allow.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the execution of the functions of the CNO?
    Answer. The Nation cannot have a strong defense without a strong 
economy; therefore I view the deficit crisis and corresponding deep 
cuts in defense as one of the most significant challenges to the entire 
national security community. Fiscal realities aside, every CNO faces 
the following challenges executing his duties: (1) properly balancing 
current resources allocated to sustain, train, and equip the Navy; (2) 
obtaining the necessary resources to build and man the future Navy; and 
(3) ensuring continuity among requirements, resourcing, and acquisition 
in the existing planning, programming, budgeting, and execution 
process. The Navy's larger imperatives are to remain whole (avoid 
decisions that create hollow capabilities) and maintain an 
international forward presence that offers our national leadership 
options to protect U.S. global interests.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work closely with my Navy senior 
leadership team, my fellow Service Chiefs, the CJCS, the SECNAV, and 
through him, the Secretary of Defense and Congress to develop balanced, 
fiscally-responsible approaches to addressing and solving these 
problems.
                       duties and qualifications
    Question. Section 5033 of title 10, U.S.C., describes the duties of 
CNO and requires that the person nominated to fill the job have had 
significant experience in joint duty assignments, including at least 
one full tour of duty in a joint duty assignment as a flag officer.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I believe the breadth and depth of my experience as a naval 
officer and joint warfighter qualifies me for this position. I had the 
privilege of five commands, including assignments as Commander U.S. 
SEVENTHFLT, where I served as a Joint Task Force Commander, Joint Force 
Maritime Component Commander, and Coalition Force Maritime Component 
Commander for two major Pacific war plans. As Commander, U.S. Fleet 
Forces Command, I was responsible for the Navy's Global Force 
Management and support to three combatant commanders. In my current 
position as Vice Chief of Naval Operations, one of my core 
responsibilities is to serve as Navy's representative for joint 
capabilities development. My five tours on the Navy headquarters staff 
and financial management specialization have provided me deep insight 
on integration of warfighting capabilities and resources; business 
operations; planning, programming, budgeting and execution; and cost 
reduction efforts in a fiscally constrained environment.
    Question. Do you meet the joint requirements for the position or 
did you require a waiver?
    Answer. Yes, I required a waiver. Per 10 U.S.C. section 5033(s)(3), 
the President may waive the joint requirements. My nomination is based 
in part on my joint duty assignment as a flag officer while serving as 
the U.S. Pacific Command Representative, Guam, Commonwealth of the 
Northern Mariana Islands, Federated States of Micronesia, Republic of 
Palau. The Secretary of Defense requested this waiver based on the 
recommendation of the SECNAV and the advice of the CJCS.
            united nations convention on the law of the sea
    Question. Officials of DOD, including previous Chiefs of Naval 
Operations, have advocated for accession to the Law of the Sea 
Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. Yes. The United States is the world's foremost maritime 
power and our security interests are intrinsically global in nature. 
Our Navy is deployed throughout the world. We have more to gain from 
legal certainty and public order in the world's oceans than any other 
nation. Joining the Convention will reinforce our Cooperative Strategy 
for 21st Seapower and the Naval Operations Concept 2010 to confront 
maritime security challenges.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. I believe that accession to the Law of the Sea Convention 
is in our national security interests. The basic tenets of the 
Convention are clear and beneficial to the Navy. From the right of 
unimpeded transit passage through straits used for international 
navigation and reaffirming the sovereign immunity of our warships, to 
providing a framework for countering excessive claims of other states 
and preserving the right to conduct military activities in exclusive 
economic zones, the Convention provides the stable, predictable, and 
recognized legal regime we need to conduct our operations today and in 
the future.
    U.S. military forces must be able to operate freely on, over, and 
above the world's oceans. That freedom is critical to our national 
security interests, the military in general, and the Navy in 
particular. The Law of the Sea Convention codifies fundamental benefits 
important to our operating forces as they train, transit, and fight. 
Amendments made to the Convention in the 1990s satisfied many of the 
concerns that opponents have expressed. Also, joining the Convention 
will not subject the U.S. Navy to the jurisdiction of international 
courts, nor will it adversely affect the President's Proliferation 
Security Initiative (PSI) or United States intelligence activities.
    The Convention is the bedrock legal instrument underpinning public 
order for the world's oceans. By joining the Convention, we can best 
assert our leadership in oceans law and policy, and in conjunction with 
our Freedom of Navigation program, we can best protect the navigational 
rights and freedoms that are of such critical importance to our 
Nation's security and economic prosperity.
    Question. In your view, what impact, if any, would U.S. accession 
to the Law of the Sea Convention have on ongoing and emerging maritime 
disputes such as in the South China Sea and in the Arctic?
    Answer. The United States is the only permanent member of the U.N. 
Security Council and the only Arctic nation not a party to the Law of 
the Sea Convention. U.S. economic interests in the Arctic are 
significant, including natural resources, shipping and trade. The 
United States has an extended continental shelf (ECS) that is likely to 
be more than 1 million square kilometers--an area nearly half that of 
the Louisiana Purchase, with energy and mineral resources that have 
been estimated to value up to $1T and include mineral deposits and 
petroleum resources (oil, gas, gas hydrates).
    In the ongoing tensions over rights in the South China Sea, the 
United States will be in a stronger position of influence by joining 
the Convention that provides the legal regime for the oceans. U.N. 
Convention on the Law of the Sea (UNCLOS) membership will put the full 
weight of U.S. political leadership behind the legal maritime framework 
it upholds. Application of the legal standards and framework as 
codified by UNCLOS is central to resolution of existing maritime 
disputes. Our friends and allies need our political leadership within 
UNCLOS to influence resolution of South China Sea disputes in 
accordance with the legal standards and customary maritime law as 
defined by UNCLOS.
                             transformation
    Question. If confirmed, you would play an important role in the 
process of transforming the Navy to meet new and emerging threats.
    What are your goals regarding Navy transformation?
    Answer. The Navy is on a good course and speed regarding 
transformation initiatives and we have a good navigation plan for the 
future. If confirmed, my goals will remain largely consistent with our 
current efforts. For example, Navy has taken the lead within DOD in 
reshaping itself to meet current and future cyber threats and 
opportunities, but we have more work to do to capitalize on our 
progress to date and realize the full potential of our growing cyber 
force. We must continue to mature Navy's recently-formed Information 
Dominance Corps, which will help develop integrated solutions in 
unmanned ISR systems, Electronic Warfare, and C5I. We must continue to 
retain our advantage in the undersea domain in order to achieve joint 
assured access wherever it is needed. We will also focus on supporting 
the development of emerging technologies we think hold the greatest 
promise for future naval and joint warfighting (such as the railgun, 
Free Energy Laser, and Directed Energy).
    Underpinning all these goals is a need to transform our 
demographics within the Navy to ensure our personnel reflect the 
society we defend. I intend to pursue diversity goals within 
established policy guidelines, so that we can recruit, retain, and 
promote the best talent the Nation has to offer, regardless of color, 
creed, ethnicity, sexual orientation, or gender.
                            fleet readiness
    Question. Recently, there have been a number of ships that have 
failed inspections by the Board of Inspection and Survey (INSURV), 
including Aegis cruisers and destroyers due to poor material condition. 
Some have suggested that these INSURV failures result from increased 
deployment demands supporting current operations. Others have suggested 
they are caused by deficiencies in the maintenance efforts or 
deficiencies of leadership in maintaining these ships.
    What do you believe has caused these increases in INSURV inspection 
failures, and what would you propose to do about it?
    Answer. The Navy has been aggressively tackling causal factors 
related to increases in INSURV inspections that have resulted in 
``degraded'' or ``unsatisfactory'' findings. A major contributor to 
these problems has been our high operational tempo to support ongoing 
conflicts over the last decade. Frequent deployments, compounded by a 
decreasing fleet size, have constrained our ability to adhere to pre-
planned maintenance schedules. Other causal factors include past 
decisions regarding ``optimum manning'' (excessive reductions in ship 
manning), technical training for sailors, material assessment training 
for senior officers, shifts in staffing of intermediate maintenance 
activities, and planning and execution of surface ship maintenance.
    We have initiated a number of activities to improve overall 
readiness of our surface ships over the long term. The Naval Sea 
Systems Command has established SEA-21, a directorate dedicated to 
managing the complete lifecycle support, maintenance and modernization 
for all non-nuclear surface ships operating in the Fleet. Another 
critical step forward is the improved research, planning, and execution 
of surface ship maintenance built upon the proven processes we use in 
the carrier and submarine communities. We are increasing the crew size 
of select ship classes, focusing on critical technical ratings, 
creating waterfront material assistance teams, and increasing the 
staffing of Regional Maintenance Centers. Technical training has been 
updated to increase hands-on experience and improve the balance between 
computer-based and instructor-led classes. We have partnered with the 
American Bureau of Shipping to improve our assessment of ship material 
condition and actions required to achieve the expected service life of 
each hull. These initiatives are resulting in tangible improvement in 
surface ship readiness, and improvement in functional areas in recent 
INSURV inspections, as attested to by recent Fleet reports. If 
confirmed, I intend to continue to promote and support these actions, 
which are expected to continue to have a positive impact on material 
readiness of our surface ships over the next several years.
                         acquisition management
    Question. Do you see a need for any change in the role of the 
Office of the CNO in the requirements determination, resource 
allocation, or acquisition management processes of the Department of 
the Navy?
    Answer. From my perspective, the role of the CNO in the 
requirements determination and resource allocation process is clear and 
appropriate. While the current cooperation among the CNO and 
acquisition officials is good, it should not be personality dependent. 
Service Chiefs should have a more formal role in acquisition management 
to ensure continuity among the requirements, resourcing and acquisition 
processes.
    Question. Do you see a need for any change in the structure or 
functions of the Joint Requirements Oversight Council (JROC) or the 
role played by the CNO and the Vice Chief of Naval Operations in the 
JROC?
    Answer. I do not. I will continue to support the important work of 
the JROC. If confirmed, and after I have participated in the process, I 
will recommend changes as appropriate.
                        anti-access/area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
U.S. Navy's freedom of movement and action in certain regions.
    Do you believe emerging anti-access and area denial capabilities 
are a concern and, if so, what do you believe the Navy needs to be 
doing now and in the next few years to ensure continued access to all 
strategically important segments of the maritime domain?
    Answer. There are an increasing number of foreign capabilities that 
have the potential to slow or prevent the deployment of friendly forces 
into the theater, cause our forces to operate from distances further 
from a crisis than desired, or to disrupt friendly operations in 
theater by targeting our enabling capabilities. The Navy has and will 
continue to develop programs that provide capabilities and capacity to 
address emerging anti-access threats. Accordingly, we are strengthening 
our partnerships, modernizing our forces, fielding new capabilities and 
technologies, and developing new operational concepts. One specific 
initiative that will help preserve access and freedom of action in 
denied areas is implementation of the Air-Sea Battle Concept. This 
effort leverages advantages a particular service has in one domain in 
order to enable or enhance effects in another domain through integrated 
operations of networked naval and air forces. Air-Sea Battle 
implementation will ensure continued U.S. advantage against emerging 
anti-access threats.
                        recapitalizing the fleet
    Question. Despite the fact that Navy leadership has determined that 
it needs to have a 313-ship fleet to meet the maritime requirements of 
the National Military Strategy, it is currently operating with 284 
battle force ships. The Congressional Budget Office (CBO) has concluded 
that the Navy has underestimated the costs for building the 313-ship 
fleet by approximately 16 percent.
    Do you agree with the CBO's assessment that there is significant 
cost risk associated with the Navy's shipbuilding plan?
    Answer. The Navy and CBO are in relatively close agreement in our 
cost estimates for the first 10 years of the 30-year shipbuilding plan 
because we have a good understanding of the ships requirements and 
costs. In the second 10 years, our cost estimates begin to diverge 
because we lose some of the cost fidelity, and inflation factors come 
in to play. There is a difference between the way the Navy cost 
estimators account for inflation versus the way CBO accounts for 
inflation, which impacts the gap between CBO's estimates and the Navy's 
estimates. In the last 10 years of the 30-year plan, the gap increases 
are driven by this difference in inflation estimates, and by the 
assumptions made for the capabilities and costs of new ships. As the 
near term is most relevant from an execution perspective, the 
relatively small differences pose limited risk to the shipbuilding 
plan.
    Question. What actions do you believe are necessary to execute the 
Navy's shipbuilding plan within the Navy's budget estimates?
    Answer. In the near term, I anticipate the acquisition community 
will continue its efforts to promote efficiency and competition in the 
industrial base to gain best value for the Navy and the taxpayer. For 
the longer term, we will work to control changes in requirements and 
ensure requirements for new classes of ships are limited to essential 
or mandated capabilities.
    Question. How would you characterize the risks to mission 
performance posed by the current shortfall in battle force ships and 
the growing shortfall in tactical aircraft?
    Answer. The Navy is meeting critical Combatant Command (COCOM) 
demand for battle force ships and associated tactical aircraft. While 
not able to meet the cumulative annual global COCOM requirements, Navy 
is meeting all adjudicated demands through the Joint Global Force 
Management process, based on prioritized requirements defined by the 
OSD's Guidance for the Employment of the Force.
    Question. What adjustments to the respective programs are necessary 
and appropriate to reduce that operational risk?
    Answer. Based on our current strategy, I believe the President's 
budget reflects the best balance of resources across the totality of 
our requirements.
    Question. What further adjustments would you consider if the Navy's 
program comes under further pressure due to cost growth?
    Answer. Pending the outcome of the current strategic review, it is 
premature to identify where it might be most appropriate to adjust 
requirements.
             alternative financing methods for shipbuilding
    Question. Navy leaders have testified that alternative financing 
methods must be found for shipbuilding.
    What are your views and recommendations on the benefits and 
feasibility of alternative financing methods, such as incremental 
funding and advance appropriations?
    Answer. The Navy currently has incremental funding authority for 
our most expensive ship class, nuclear carriers, and Congress has 
granted 2-year funding authority for some large amphibious ships. This 
authority has been helpful in mitigating the impact of the high levels 
of funding required by these ships on other ships which need to be 
procured to achieve required force levels and to more efficiently load 
the shipbuilding industrial base.
    Question. What is your assessment of the long-term impact of such 
alternative financing methods on the availability of funds for 
shipbuilding?
    Answer. Alternative financing methods allow the Navy to maintain 
the shipbuilding industrial base through more efficient management of 
SCN total obligational authority. Different financing periodicities 
provide greater flexibility in executing scarce resources and help 
avoid individual-year funding spikes. Whenever possible, the Navy 
remains committed to following a full-funding policy, where the entire 
obligation is provided upon contract award.
                     attack submarine force levels
    Question. The Navy's most recent statement of requirements for 
attack submarine force levels was 48 attack submarines. However, the 
Navy projects that the number of attack submarines will fall as low as 
39 boats and remain below the 48-boat requirement for almost two 
decades. The Navy is now claiming that it will be able to mitigate this 
shortage using three techniques: (1) building the new Virginia-class 
submarines faster by reducing the time between the start of 
construction to delivery from the current level of 86 months for the 
last boat to deliver to a level of 60 months; (2) extending the life of 
some boats currently in the fleet from 3 to 24 months; and (3) 
increasing the length of deployments
    What is your assessment of whether the three techniques listed 
above will yield a number of deployed attack submarines sufficient to 
meet the requirements of the combatant commanders and other 
intelligence, surveillance, and reconnaissance needs?
    Answer. The Navy has already made progress in shortening the time 
to build the Virginia-class SSN to 66 months for the most recent 
delivery, USS Missouri (SSN-780). The program is on schedule to meet 
its ultimate goal of a 60-month construction span. This has the effect 
of adding one submarine to the force, thereby delaying the onset of the 
SSN force structure trough which will begin in 2024. Projected life 
extensions of a limited number of SSNs is possible, but will relieve 
less than 20 percent of the force structure trough and its duration. 
Increasing the length of deployments can improve forward deployed 
presence for short-term periods but does not address the impending 
force structure trough. Taken together, although helpful, these three 
techniques will not be sufficient to meet the shortfall relative to 
combatant commander's requirements under current planning guidance.
    Question. What risks are being incurred by allowing the attack 
submarine force levels to remain below 48 for so long?
    Answer. Under current planning guidance, an attack submarine force 
level below 48 will increase the risk of gaps in our coverage for 
indications and warning of potential hostile action, delay or reduce 
the arrival of submarines critical to the war fight, and potentially 
allow an adversary to create and maintain a safe haven.
                         ohio-class replacement
    Question. A major cost risk facing the Navy at the end of this 
decade is the cost of replacing the Ohio-class strategic missile 
submarines. The acquisition process has already resulted in the Navy 
acquisition system making a number of cost vs. capability decisions to 
try to reduce those costs risks to the shipbuilding budget.
    Do you agree with the decisions that have been made about the 
capability of the Ohio-class replacement submarines?
    Answer. The Ohio Replacement Program Milestone ``A'' decision 
reflects cost versus capability trades that were jointly agreed on by 
the requirements and acquisition stakeholders in the Navy and DOD. I 
support these decisions.
    Question. How confident are you that the program will be able to 
produce an Ohio-class replacement vessel that meets current cost 
objectives?
    Answer. The Ohio Replacement Program has been thoroughly reviewed. 
All aspects of the program (warfighting requirements, program 
execution, design and construction efforts) were aggressively 
challenged to drive down non-recurring engineering and construction 
costs. The Navy estimates that the average Ohio Replacement cost for 
hulls 2-12 will be $5.6 billion with a goal of reducing this to $4.9 
billion.
    I believe these estimates are achievable in the context of the 
current shipbuilding plan due to the scrutiny on requirements and costs 
leading up to the Milestone ``A'' decision.
                             sea-based isr
    Question. There is a documented Joint Urgent Operational Need for 
sea-based Intelligence, Surveillance, and Reconnaissance (ISR) to 
support missions by special operations forces in areas where land-based 
ISR is unavailable. The committee understands the Navy recently 
completed a proof of concept which demonstrated the value of such a 
capability to current combat operations, but does not intend to field a 
program-of-record solution until 2019.
    What is your understanding of the requirement for sea-based ISR 
capabilities to support special operations forces?
    Answer. Navy is planning and developing capabilities that will help 
satisfy legitimate ISR demands of Special Operations Forces. The intent 
is to procure ISR systems with multi-intelligence sensor modules, on 
station endurance and integrated weapons to support a broad range of 
missions from the sea.
    Question. Do you believe the responsibility for fielding sea-based 
ISR capabilities to support Special Operations Forces falls on the Navy 
or U.S. Special Operations Command (SOCOM)?
    Answer. Fielding sea-based ISR capabilities is a shared 
responsibility that begins with coordination over requirements and 
development of systems that can execute many types of ISR missions for 
operational commanders. Demands for service-specific ISR already in the 
field is managed through the Joint Staff Global Force Management 
Allocation Plan and Request for Forces. The Navy is investing in sea-
based ISR support to SOF with programs of record such as the Small 
Tactical Unmanned Air System (IOC 2013) and the Medium Range Maritime 
Unmanned Air System (IOC 2019). While program development continues, 
the Navy is committed to supporting SOF from the sea with other 
capabilities to include Fire Scout, land-based Scan Eagle support, 
manned ISR aircraft and deployed combatants. The Navy is pursuing 
options to accelerate the fielding of an upgraded Fire Scout that will 
provide enhanced endurance and payload.
    Question. Do you believe the Navy's current timeline for fielding a 
program-of-record capability for sea-based ISR is appropriate?
    Answer. The Navy has embarked upon a transition to a future ISR 
``Family of Systems.'' The Family of Systems will allow the Navy to 
transition from a limited number of multi-intelligence manned platforms 
to a greater number of systems that are tailorable and scalable to meet 
Navy, Coalition and joint warfighter requirements. We are making 
significant investments of over $8 billion across fiscal year 2012-
fiscal year 2016 to address the Navy's future requirements, including 
funding for the following Unmanned Airborne Systems: Fire Scout ($1.1 
billion, IOC 2012), Broad Area Maritime Surveillance ($3.9 billion, IOC 
2015), Unmanned Carrier Launched Airborne Surveillance and Strike ($2.5 
billion, IOC 2018), and Medium Range Maritime Unmanned Aerial System 
($1.1 billion, IOC 2019). These platforms with appropriate sensors and 
processing will recapitalize the capabilities currently provided by EP-
3 and Special Projects Aircraft and are programmed for delivery to the 
fleet prior to EP-3/SPA end of service life in the 2019-2020 timeframe.
                special operations personnel management
    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of Special 
Operations Forces. One proposal would modify section 167 of title 10, 
U.S.C., to change the role of the SOCOM Commander from ``monitoring'' 
the readiness of special operations personnel to ``coordinating'' with 
the services on personnel and manpower management policies that 
directly affect special operations forces.
    What is your view of this proposal?
    Answer. I do not believe the proposal is necessary. Navy already 
coordinates with SOCOM--typically through the component SOF commander 
to SOCOM--on a wide variety of personnel policy/actions such as 
individual selection, assignments, promotion precepts, and command 
selection. It is vital that a Service is vested with final decision 
authority when it comes to personnel and manpower management policies.
  capabilities of special operations forces and general purpose forces
    Question. The 2010 Quadrennial Defense Review called for increased 
counter insurgency, counterterrorism, and security force assistance 
capabilities within the general purpose forces. These missions have 
traditionally been within the purview of Special Operations Forces.
    What actions, if any, do you believe need to be taken in order to 
allow special operations and general purpose forces to successfully 
share these missions in the future?
    Answer. The Navy continues to emphasize coordination and 
integration, where appropriate, of Navy's General Purpose Forces (GPF) 
and Special Operation Forces (SOF) for Counterterrorism (CT), 
Counterinsurgency (COIN) and Security Force Assistance (SFA) missions. 
These missions are shared in many parts of the world, whether using 
naval platforms for Afloat Forward Staging Bases in remote littoral 
areas, integrating sea-based ISR and fires support to augment SOF 
``find, fix, finish'' operations, or using Naval Expeditionary Combat 
Command units to support SFA activities. We will continue to encourage 
increased coordination between GPF and SOF units in pre-deployment 
phases. Navy's inherent multi-mission focus continues to give 
operational commanders options to mix and match capabilities to best 
meet their mission needs in forward areas.
    Question. Are there certain mission areas that should be Reserved 
for special operations forces only?
    Answer. Unconventional Warfare and Direct Action missions in 
Counterterrorism should stay predominantly within the purview of SOF.
                     science and technology program
    Question. The budget request for defense Science and Technology 
(S&T) still falls short of the Defense Science Board's recommended goal 
of dedicating 3 percent of the total defense budget to S&T. In 
particular, the Navy S&T program, especially the investment in long-
term, innovative work which has been so successful in confronting 
emerging threats, has declined significantly since the fiscal year 2006 
request.
    If confirmed, what metrics would you use to assess whether the Navy 
is investing adequately in S&T programs?
    Answer. Three key components exist to an effective S&T program: (1) 
a strong and focused investment in basic and early applied research to 
build the scientific foundation for future technologies, (2) an 
emphasis on key ``game changing'' initiatives that can provide 
disruptive technologies to the Navy and Marine Corps warfighter, and 
(3) an ability to transition S&T programs to the acquisition community 
and the Fleet. One way we assess the adequacy of our investments is to 
assess the balance of effort and output in each of these areas. A 
second metric is our success rate in transitioning viable and 
affordable S&T initiatives into the acquisition programs that make it 
to the Fleet.
    Question. How would you assess the value and appropriate investment 
level for basic research programs?
    Answer. Discovery and Invention (D&I) includes basic research (6.1) 
and early applied research (6.2) in areas with unique requirements 
essential to the naval mission and in areas that are undefined but hold 
promise for future application. D&I develops fundamental knowledge, 
provides the basis for future Navy/Marine Corps systems, sustains our 
scientist and engineer workforce, and contributes to long term DoN 
strategic goals. D&I constitutes the largest portion, approximately 40 
percent, of the Navy's $2 billion S&T investment. We believe this 
investment is appropriate for our needs.
                          technical workforce
    Question. A significant challenge facing the Navy today is an 
impending shortage of high quality scientific and engineering talent to 
work at Navy laboratories and technical centers.
    In your view, what are the pros and cons of having active-duty Navy 
personnel trained and working as scientists and engineers within the 
Navy research and acquisition system?
    Answer. The Department of the Navy's technical workforce has been 
the reason for the Navy's long-term technical success in developing and 
fielding advanced maritime systems. The current level of U.S. Navy 
talent is high--producing the world's top-ranked government patent 
portfolio, according to the Institute for Electrical and Electronics 
Engineers. Navy estimates that close to 50 percent of our S&T 
professionals will be retirement eligible by 2020. Attracting, 
recruiting, and retaining qualified scientific and engineering talent 
is critical to the Navy and the Nation's future.
    The use of uniformed military officers to fill potential shortfalls 
in our scientific community helps infuse an understanding of fleet 
operations and requirements, and strengthens the military-civilian 
partnership in our acquisition system; however, laboratories and 
technical centers are best served by a strong, stable cadre of civilian 
specialists who provide long-term, dedicated support in their highly 
specialized fields of study.
                       test and evaluation issues
    Question. What do you see as the role of the developmental and 
operational test and evaluation communities with respect to rapid 
acquisition, spiral acquisition, and other evolutionary acquisition 
processes?
    Answer. The developmental and operational test community role in 
rapid acquisition is the same as that of traditional acquisition. 
Adequate testing is critical to assess performance of systems in 
operationally realistic environments. Testing informs decision makers 
of the capabilities and limitations of systems and how they perform 
relative to the acquisition program requirements or the operational 
need. The goal is to do this as early as possible and before systems 
are fielded. The only significant difference between ``normal'' 
acquisition processes and rapid acquisition or urgent needs is the 
flexibility and timeline for testing requirements and the oversight 
provided. In general, the test community has flexible policies which 
can be customized. A good example of this is the Quick Reaction 
Assessment on the Littoral Combat Ship, which allowed it to deploy 
earlier in support of Fleet needs.
    Question. Are you satisfied with the Navy's test and evaluation 
capabilities?
    Answer. Yes. Current T&E capabilities are adequately funded to meet 
acquisition program requirements and Navy Ranges and Labs are 
considered key to assessing system performance. The Navy has a robust 
process to evaluate current and future T&E capability needs. Through 
the Tri-Service T&E Reliance process, we work with the other Services 
and the OSD Test Resource Management Center to review existing test 
infrastructure, assess health, and ensure adequate test capabilities 
and capacity exist without unnecessary duplication.
    Question. In which areas, if any, do you feel the Navy should be 
developing new test and evaluation capabilities?
    Answer. We continue to look at emerging technologies and the T&E 
capability needed to test them. New focus areas may require future 
capability investments as systems are developed and their T&E needs and 
challenges are defined. Requirements for new technologies and programs 
of record will be used to determine shortfalls and build investment 
plans for Navy T&E Improvement and Modernization funding. We also work 
with OSD and the other Services to develop Joint T&E capabilities, 
where appropriate.
                       ballistic missile defense
    Question. The Navy will play an important role in defending the 
Nation against the threat of long range ballistic missile attack and in 
defending allies, friends, and deployed forces against theater 
ballistic missile threats.
    The Ike Skelton National Defense Authorization Act for Fiscal Year 
2011 (Public Law 111-383) required the SECNAV to submit a report to the 
congressional defense committees on the requirements for major 
combatant surface vessels with respect to ballistic missile defense 
(BMD). The Navy report stated that the Navy has established a 
requirement for fiscal year 2024 of having a force of 94 multi-mission 
large surface combatants (including BMD capability).
    The Navy also delivered a copy of its 30-year shipbuilding plan to 
the committee. The Navy projects that they will achieve the 94-ship 
goal for BMD-capable ships in 2020 and 2021, although force levels will 
decline thereafter. Specifically, the Navy projects that they will 
have, at most, 92 BMD-capable ships in 2024 before declining to 65 
ships in 2034.
    Do you view BMD as a core Navy mission?
    Answer. Navy BMD is fully consistent with our Maritime Strategy, 
enhancing deterrence, supporting sea control and the conditions for 
power projection, all of which is achieved through forward presence. 
The Geographic Combatant Commanders recognize the value of this 
capability and have created a high demand for these assets, as 
demonstrated through the validation of an increase in the large surface 
combatant requirement from 88 to 94 in the current planning 
environment.
    Question. What options should the Navy be exploring to reduce the 
shortfall in meeting the stated requirement of having 94 BMD capable 
ships?
    Answer. The Navy has already embarked on an effort to increase the 
production of BMD capable large surface combatants through the restart 
of the DDG-51 production line, promoting competition in DDG production 
to improve cost, setting the conditions for a future DDG multi-year 
program, and adding an additional DDG in fiscal year 2014. The Navy has 
also embarked on a focused effort to control costs in the Ohio 
Strategic Ballistic Submarine replacement program to minimize impacts 
on other elements of the shipbuilding plan.
                        active-duty end strength
    Question. According to the latest data provided to the committee, 
the Navy remains on pace to exceed its 2011 authorized end strength and 
the problem is likely to continue into 2012, given the state of the 
economy and the fact that the Navy plans to reduce its active-duty end 
strength by 3,000 sailors in 2012. The other Services are facing 
similar problems as the Air Force is also overstrength and the Army and 
Marine Corps are planning significant force reductions. To address 
these issues, DOD is seeking force management tools that require 
congressional authorization.
    What force management tools does the Navy need to address these 
issues, and which of these require congressional authorization?
    Answer. Our strength projections show we will finish the fiscal 
year under our congressionally-authorized end strength. We have taken 
action to shape the force, such as reducing accessions, conducting a 
selective early retirement board and holding an enlisted retention 
board. High retention and low attrition continue to challenge our 
ability to keep a balanced force in terms of seniority, skill, and 
experience.
    I support the administration's fiscal year 2012 Defense 
Authorization Request that seeks approval for the following Force 
Management Authorities:

        <bullet> Reinstatement of Enhanced Selective Early Retirement 
        authority would expand the retirement eligible pool of officers 
        to target to shape the force.
        <bullet> Extension of Voluntary Separation Pay, to provide 
        Secretaries of the military departments with temporary 
        authority to continue using voluntary separation pay.
        <bullet> Reinstatement of Temporary Early Retirement Authority 
        (TERA) to target officers with between 15 and 20 years of 
        service for early retirement.
        <bullet> Voluntary Retirement Incentive (VRI) to provide a 
        voluntary retirement incentive to servicemembers with 20 and 29 
        years of active service, who would retire prior to their 
        planned retirement dates without the need to force their 
        retirement through involuntary means.
        <bullet> Authority to Reduce Years of Service for Mandatory 
        Retirement for certain Officers in the Grade of O-5 from 28 
        years to 25 years.
        <bullet> Authority to Reduce Years of Service for Mandatory 
        Retirement for certain Officers in the Grade of O-6 from 30 
        years to 27 years.

    Question. In addition to Enlisted Retention Boards, what methods 
does the Navy plan to use to reduce active-duty end strength from 2012 
through 2014?
    Answer. The objective of our force management policies is to 
preserve a balanced force based on seniority, skill sets, reward our 
best performers; and position the force to meet future manpower 
requirements for our projected force structure. We assess our end 
strength requirements each year as part of the budget submission 
process. For fiscal year 2012, Perform to Serve, our centralized 
reenlistment process, will be augmented by a Selective Early Retirement 
Board and an Enlisted Retention Board to meet our projected end 
strength. As we have yet to determine our end strength levels for 
fiscal year 2013 and beyond, it is too early to determine our required 
end strength target or assess methods we might use should a reduction 
be necessary. I anticipate we will make those decisions coincident to 
our fiscal year 2013 budget request.
                              navy reserve
    Question. What is your vision for the roles and missions of the 
Navy Reserve, and, if confirmed, what objectives would you seek to 
achieve with respect to the Navy Reserve's organization, end strength, 
and force structure?
    Answer. The mission of the Navy Reserve is to provide strategic 
depth and deliver operational capabilities to our Navy and Marine Corps 
team and joint forces, from peace to war. Our vision for the Navy 
Reserve is to be a provider of choice for essential naval warfighting 
capabilities and expertise, strategically aligned with mission 
requirements and valued for its readiness, innovation, and agility to 
respond to any situation. Our Navy is carrying out this mission and 
working toward that vision.
    In the decade since the September 11, 2001, attacks on our Nation, 
our Navy Reserve has answered the call. Going forward, we face a 
changing global security and economic environment, and we will ensure 
our Navy Reserve remains aligned with mission requirements. Because our 
Navy Reserve is ready, innovative and agile, we can assign capabilities 
and missions to our Reserve component with confidence. Even as we 
reduce our presence in Iraq and Afghanistan, I see a continued need and 
desire to keep our Navy Reserve engaged as a full partner in Navy's 
Total Force. We will work together to ensure Navy's Total Force, Active 
and Reserve, delivers the right capabilities to the Nation at the best 
value to the taxpayer.
    Question. How do you anticipate the Navy will use new legislative 
authorities, if enacted, that would permit involuntary call-up of 
reservists for pre-planned, operational missions?
    Answer. As we move forward into a post-Overseas Contingency 
Operations (OCO) environment, the Navy Reserve should be a regular part 
of our worldwide deployment cycle, as well as performing the Navy's 
predictable, part-time missions, where appropriate. The new authority 
would provide the ability to fully use the Reserve components as a 
rotational, operational force to augment the Active component forces in 
the execution of planned missions in support of the President's 
national security strategy, as well as for operational missions. For 
instance, our Navy Reserve Seabees are currently part of the Navy's 
Total Force mobilized deployment cycle. They mobilize in a one in five 
cycle, which allows the active duty Seabees to maintain a 1-in-3 cycle. 
This provides a cost-effective model for both components while 
maintaining sufficient strategic depth in this capability. Post-OCO, 
without this legislation, our ability to continue to use some of the 
Reserve component as an operational force, as we currently are and 
described above, would be severely inhibited.
                        joint officer management
    Question. What is your assessment of the effectiveness of the 
Goldwater-Nichols-required Joint Qualification System (JQS)?
    Answer. When the JQS was implemented on 1 October 2007, it 
recognized the skills that support U.S. military response to national 
security threats, interagency coordination, combat operations, and 
humanitarian crises. It also accounts for the intensity, environment, 
and duration or frequency of a joint experience. The JQS provides the 
opportunity to create and sustain the largest possible pool of fully-
qualified and inherently joint leaders suitable for joint command and 
staff responsibilities in both the Active and Reserve components.
    Question. Do you think additional changes in law or regulation are 
needed to respond to the unique career-progression needs of Navy 
officers?
    Answer. The JQS effectively addresses the need of the military 
services to provide qualified Active and Reserve component personnel in 
support of joint missions. We will continue to evaluate the 
effectiveness of the JQS and will consider changes in law or 
regulations as required or needed. No changes are proposed at this time
    Question. In your view, are the requirements associated with 
becoming a Joint Qualified Officer, including links to promotion to 
general and flag officer rank, consistent with the operational and 
professional demands of Navy line officers?
    Answer. We have made solid progress in policy initiatives linking 
career progression and joint management policies within Navy line 
officer career paths. While it is challenging to meet these joint 
requirements, especially for nuclear-trained aviators commanding our 
aircraft carriers, we continue to assign high-quality line officers to 
joint billets. Our goal is to sustain a cadre of officers who are fully 
qualified and inherently joint leaders, suitable for joint command and 
staff responsibilities. We are meeting our joint promotion objectives 
and filling our joint assignments and JPME seats with high-caliber 
officers.
    Question. Do you think that career judge advocates in the Navy 
should be required to complete joint professional military requirements 
in connection with operational law requirements?
    Answer. I believe there is value for judge advocates to obtain 
Joint Professional Military Education (JPME). I understand that the JAG 
Corps intends to formalize JPME guidance that would strongly encourage 
judge advocates to complete JPME Phase I as part of JAG Corps training 
requirements. The feedback the Judge Advocate General will receive from 
this initiative will inform any decision that will be made regarding 
the desire to formalize judge advocate participation in the joint 
officer management program and joint qualification system.
                  selective early retirement authority
    Question. The Navy has requested that Congress reinstate enhanced 
authority for selective early retirement.
    What changes in existing law, if any, regarding selective early 
retirement, are needed in your view?
    Answer. Although Navy prefers to utilize voluntary force shaping 
methods before resorting to use of involuntary Selective Early 
Retirement (SER), we have determined that its employment will be 
necessary in fiscal year 2012 and beyond as Navy transforms to meet 
future warfighting requirements. Accordingly, Navy believes that 
Selective Early Retirement authority should be extended until December 
2018 and that enhanced authority should:

        <bullet> permit consideration of members for early retirement 
        more than once in any 5-year period;
        <bullet> permit consideration for officers in the grade of O-5 
        who have failed to select for promotion one time (rather than 
        two or more times); and
        <bullet> permit selective early retirement of officers in the 
        grade of O-6 with greater than 2 years time in grade.
                         individual augmentees
    Question. The Navy continues to support non-traditional 
requirements through the use of individual augmentees (IAs). Admiral 
Roughead, in his written testimony for the Navy Posture Hearing earlier 
this year, stated that there were, at that time, more than 14,000 
sailors deployed in the CENTCOM Area of Operations on the ground, with 
some significant portion of these sailors serving as IAs.
    Will the Navy continue to be able to support these non-traditional 
assignments as it draws down its end strength?
    Answer. Properly manning our ships, squadrons and submarines while 
simultaneously supporting Overseas Combat Operations (OCO) and meeting 
end strength limits is increasingly challenging. Previous manpower 
programming provided additional end strength authorizations to support 
the OCO IA demand. In anticipation of the drawdown of operations in 
Iraq and Afghanistan, the Navy has phased out Non-Core and Adaptive 
Core billets from the baseline budget request, and is no longer 
authorized OCO-related supplemental end strength. In order to properly 
man our units, this will require the Navy to limit the number of 
sailors and officers it sends on OCO IA assignments in coming years.
    Question. What are the criteria being applied to determine which 
Active and Reserve officers and enlisted personnel are assigned duty as 
IAs?
    Answer. The Navy provides over half of its IA support in core skill 
areas, such as cargo handling, airlift support, and SeaBees. Navy also 
provides sailors for provincial reconstruction, detainee operations, 
civil affairs, customs inspection, and a variety of other ``non-core'' 
missions. The joint sourcing process to meet both ``core'' and ``non-
core'' requirements is deliberate and is currently focused on reducing 
IA requirements without unduly increasing the risk to mission success.
    Question. How do these assignments impact Navy readiness?
    Answer. Every sailor on an OCO IA assignment is a sailor away from 
his or her primary duty station. This has a direct impact on the 
manning of our operational units and ultimately could degrade 
readiness. Sailors on Non-Core OCO IA assignments are not maintaining 
their primary, or core Navy skill sets, potentially degrading future 
operational and material readiness. This requires a balance when 
considering IA assignments for our sailors so that we do not 
disadvantage them.
    Question. What benefit, if any, inures to the Navy as a result of 
these assignments?
    Answer. Sailors and officers who serve on OCO IA assignments gain 
valuable leadership skills and experience in joint, interagency, and 
nontraditional Navy skills. Many OCO IA assignments also provide 
coalition experience that further enhance professional skills and 
adaptability.
              reserve components as an operational reserve
    Question. What is your understanding and assessment of the Navy 
Reserve as an Operational Reserve, as opposed to its longstanding 
traditional role as a Strategic Reserve?
    Answer. The Navy Reserve is doing a magnificent job in both their 
operational and strategic roles. These missions are not mutually 
exclusive. The Navy Reserve can operate anywhere along the spectrum 
from strategic to operational, and as long as commanders have assured 
access to their Reserve component sailors, we can confidently assign 
missions to the Navy Reserve where it makes operational and fiscal 
sense.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the Navy Reserve as a relevant and capable 
Operational Reserve?
    Answer. Our Navy Reserve is relevant and capable today because we 
have invested in our people and our equipment, we have assigned them 
real and meaningful work, and we have honored the support of our 
families and our employers. In the future, we need to ensure our 
sailors continue to have the training and equipment they need to 
maintain their readiness. Much of the Reserve's valuable training and 
operational support is funded with Active Duty for Training (ADT) 
dollars. We must maintain an appropriate level of ADT funding to ensure 
our sailors are a relevant and capable force. Obtaining congressional 
legislation allowing assured access of the Navy Reserve for routine 
deployments would further enhance the Reserve as a relevant and capable 
operational force.
    Question. What are your views about the optimal role for the 
Reserve component forces in meeting combat missions?
    Answer. The optimal role for the Reserve component is as a partner 
in the Navy Total Force, where we view missions in terms of 
capabilities first, and then decide where the capability should reside. 
For some capabilities, the Navy Reserve mirrors the Active component, 
in some cases the Navy Reserve complements the Active component, and in 
others, the Active component and the Reserve component augment each 
other.
    Question. In your view, should DOD assign Homeland defense or any 
other global or domestic civil support missions exclusively to the 
Reserves?
    Answer. We look at each mission from a Total Force perspective and 
decide what capabilities are needed, how often we need them, and what 
component is best suited to carry them out. As DOD assigns Navy to 
Homeland defense or domestic civil support missions, Navy will evaluate 
which component can best deliver those capabilities.
    Question. In your view, how will predictable cycles of 1 year 
mobilized to 5 years at home affect the viability and sustainability of 
the All-Volunteer Reserve Force?
    Answer. We view predictability as a key element of a viable and 
sustainable All-Volunteer Reserve Force. With predictability and a 1-
in-5 dwell ratio, we can maintain the support of the three elements 
that make our Navy Reserve strong: sailors, families, and employers.
            mobilization and demobilization of the reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the Reserves have experienced their largest and most sustained 
employment since World War II. Across all of the Services, numerous 
problems arose in the planning and procedures for mobilization and 
demobilization, e.g., inadequate health screening and medical readiness 
monitoring, errors caused by antiquated pay systems, limited transition 
assistance programs upon demobilization, and lack of access to members 
of the Individual Ready Reserve. In the Reserve components, force 
management policies and systems have been characterized in the past as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Navy Reserve 
mobilization and demobilization procedures, and in what areas do 
problems still exist?
    Answer. The Reserve Force has seen improvements in the planning and 
notification time of sailors selected to mobilize. Internally, the 
Reserves have leveraged technology for process improvements via the 
Ready Mob Pool, Volunteer Portal, IA Portal and a Single Source 
Deployability metric.
    Sailor notification of impending mobilization has greatly improved 
from an average of 60 days in 2009 to 140 days (orders in hand) as of 
July 2011. The longer notification time directly translates into needed 
time for Navy families to plan for impending mobilizations and for our 
sailors to individually prepare themselves medically, physically, and 
administratively. This improvement is seen in the significant lowering 
of the administrative mobilization processing fall-out rate from 40 
percent to 15 percent of cancellations. It also allows employers more 
time to prepare for mobilized employees and eases tension in the 
workplace.
    The Navy Reserve has made a concerted effort to strengthen all 
phases of the deployment cycle to take the best possible care of 
sailors and their families. Predeployment Family Readiness Conferences, 
Command Individual Augmentee Coordinators (a Total Force program), 
Returning Warrior Workshops, the Psychological Health Outreach Program, 
and the Navy's Family Readiness programs minimize risk to Navy missions 
supported by Navy Reserve sailors. These programs enable servicemembers 
to focus on the mission by preparing them before, during, and after 
deployment, and reassuring them that their families are being cared for 
while they are away.
    Question. What is your understanding and assessment of the 
sufficiency of current Reserve Force management policies?
    Answer. Management policies as they relate to mobilization are 
sufficient. Colocation of Reserve Forces Command with Fleet Forces in 
Norfolk, VA, following the 2005 BRAC has improved integration and 
facilitated constant and consistent communications. The joint working 
space of the Individual Augmentee Portal allows for greater 
notification of requirements. Coupled with the increased volunteer 
rate, these have improved the ability to provide the Reserve sailor 
increased notification of impending mobilization to allow for improved 
preparation from individual readiness to family preparedness.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. Improvements in overall Reserve Force notification time has 
allowed Reserve sailors to seek additional resources earlier, which has 
improved the readiness of the Reserve Force.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the Reserve component?
    Answer. Yes. The Reserve component has been used as a rotational, 
operational force during the past 10 years. DOD expects that there will 
be a continuing military requirement to augment the Active component to 
meet the force requirements of the combatant commanders as we execute 
the President's national security strategy. Since September 11, 2001, 
access to the Reserve component has been assured via Presidential 
action that initially invoked, and has annually extended, a declaration 
of national emergency that enables the use of the partial mobilization 
authority detailed in 10 U.S.C. 12302.
    DOD has proposed an amendment to section 12304 of title 10, U.S.C., 
which would enable the President to access the Reserve component for 
all missions to support his national security strategy, not just 
operational missions, weapons of mass destruction scenarios, and 
terrorist threats or attacks.
    Question. Is the Navy Reserve currently meeting the dwell-time 
ration goal of 5 years at home for every year deployed?
    Answer. Yes. The Navy Reserve has no communities that are required 
to involuntarily mobilize any Reserve sailors inside a 1-to-5 dwell 
ratio. Between new accessions, volunteers and Navy Reserve sailors 
completing their dwell period, the Navy Reserve has had the necessary 
inventory to meet all missions assigned without violating the 1-to-5 
dwell period.
                        individual ready reserve
    Question. The Commission on the National Guard and Reserves has 
found that accessing the IRR as a viable source of manpower for the war 
was problematic, and that using the IRR as a solution for unit manning 
is not feasible.
    What is your assessment of the value of the IRR to the Navy?
    Answer. The Navy has developed and implemented new objectives for 
its IRR, as well as changed the face of the current IRR population to 
provide improved training, manning, accountability and valuable support 
to gaining commands worldwide. During the past couple of years, we have 
strived to streamline the IRR by discharging sailors not able to 
mobilize and improving access to those members who remain qualified for 
mobilization and show a continued interest to serve.
    Question. What are your views on the proper role of the IRR in Navy 
force management planning?
    Answer. The role of the IRR is and should be a Strategic Reserve of 
members who are a valuable resource pool of trained veterans that can 
be mobilized individually or with an augmented Selected Reserve unit 
with minimal preparation.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Navy's IRR recall policy?
    Answer. The Navy has been working for the past 2 years to sustain a 
ready pool of medically, physically, and training-ready IRR sailors in 
high demand, low supply skill sets. This right-sizing effort has paid 
tremendous dividends with the increased demand for IRR support staff at 
multiple gaining commands worldwide with noticeable results. Also, Navy 
has recently switched from physical musters of the IRR to completely 
virtual musters. We have found that the benefits of a physical muster 
were marginal when compared with the cost and manpower required to 
administer them.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to active duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing a denial of that request?
    Answer. Navy has not involuntarily mobilized members from the IRR 
and currently has no plans to do so. Should we change course with 
regard to this policy, we have the tools in place to fairly and 
efficiently recall our IRR sailors. The current delay or exemption 
process utilized for Selected Reserve sailors could be expanded to 
include IRR members.
         medical and dental readiness of navy reserve personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Navy Reserve?
    Answer. In the past 2 fiscal years, Navy has exceeded DOD readiness 
standards for fully and partially ready Reserve component workforce. We 
attribute our improved readiness status to process improvements in 
policy implementation and legislative changes. Examples including: (1) 
improved access to Navy Military Treatment Facilities, satellite 
clinics, Navy Operational Support Centers and Community healthcare via 
Reserve Health Readiness Program (RHRP) Point of Service to complete 
individual medical/dental screening requirements; (2) access to TRICARE 
Standard 6 months pre- and post-deployment has also contributed to a 
continuum of available clinical services for our RC sailors identified 
for mobilization; and (3) implementation of TRICARE Reserve Select, an 
affordable health plan option available to our selected reservists, 
enabling them to obtain required medical and dental services that have 
contributed to our high level of overall medical and dental readiness.
    If confirmed, ensuring timely and accurate medical and dental 
readiness of our Reserve component will remain a priority for me and 
Navy leadership. Moving forward, we will continue to focus on 
improvements in readiness reporting including use of Medical Reserve 
Readiness System (MRRS) as a single source capturing Medical/Dental 
Readiness indicators. We will also be assessing opportunities in 
developing interoperability capabilities that will standardize internal 
readiness processes.
    Question. How would you improve upon the Navy's ability to produce 
a healthy and fit Navy Reserve?
    Answer. Our sailors must be healthy, fit and mission capable. A 
healthy and fit Navy Reserve Force is not negotiable. We will 
continuously improve our screening process and work to ensure 
compliance with current individual medical readiness policies 
(including obtaining required periodic health assessments). Our focus 
will continue to be one of health promotion and disease prevention.
             navy policies regarding drug and alcohol abuse
    Question. What is your understanding of the Navy's policy with 
respect to disciplinary action and administrative separation of sailors 
who have been determined to have used illegal drugs? Do you agree with 
this policy?
    Answer. Navy's policy on drug abuse is ``zero tolerance.'' Navy 
members determined to be using, possessing, promoting, manufacturing, 
or distributing drugs and/or drug abuse paraphernalia shall be 
disciplined as appropriate and processed for Administrative Separation. 
Members diagnosed as drug dependent shall be offered treatment prior to 
separation. I support this policy to preserve troop strength and 
mission readiness.
    Question. What is your understanding of the Navy's policy with 
respect to rehabilitation and retention on active duty of sailors who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. Our policies are sufficiently permissive to allow 
commanders the opportunity to assist servicemembers with treatment and 
recovery for both illegal drug use and alcohol abuse. Members diagnosed 
as drug dependent shall be offered treatment prior to separation. 
Commanding officers have the discretion to retain members determined to 
have abused alcohol. The separation authority may, under unusual 
circumstances, forward cases of illegal drug use or abuse of 
prescription drugs to Commander, Navy Personnel Command for retention. 
I agree that Navy policies ensure that the deterrence benefit of 
disciplinary action is balanced with--but not sacrificed to--the need 
to appropriately provide treatment and support.
    Question. What resources does the Navy have currently to respond to 
sailors who are alcohol or drug dependent and do you believe that the 
Navy has devoted sufficient resources to implementation of its 
rehabilitation policies and objectives since 2001? If not, in what 
ways?
    Answer. Navy maintains a steadfast commitment to resourcing our 
Substance Abuse Rehabilitation Programs (SARP). Our SARPs offer a broad 
range of services to include alcohol education, outpatient and 
intensive outpatient treatment, residential treatment, and medically 
managed care for withdrawal and/or other medical complications. We have 
expanded our existing continuum to include cutting-edge residential and 
intensive outpatient programs that address both substance abuse and 
other co-occurring mental disorders directed at the complex needs of 
returning Warriors who may suffer from substance abuse disorders and 
depression or post-traumatic stress disorder as well as implementing a 
web-based recovery management program available to servicemembers 24/7 
from anywhere in the world.
    Question. What measures are being taken to improve the Navy's 
performance in responding to problems of drug and alcohol abuse?
    Answer. Navy has taken an integrated approach across all of our 
sailor programs to emphasize positive lifestyle choices including 
physical and mental fitness, nutrition, healthy personal relationships, 
and alcohol free entertainment opportunities. Navy also emphasizes the 
significant negative outcomes associated with drug and alcohol abuse 
such as suicide, domestic abuse, sexual assault and other damaging 
personal and professional events.
                          religious guidelines
    Question. The DOD Independent Review Related to Fort Hood observed 
that ``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization'' and recommended that the policy be updated.
    Has the Navy revised its policy regarding religious accommodation 
since the issuance of this report?
    Answer. No. We have coordinated with DOD and other Services on a 
policy that will apply uniformly across all the Services. Once we 
receive an updated DOD policy, we will work with the SECNAV to update 
our standing policy.
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the Navy?
    Answer. No. I expect that all Navy personnel--both uniformed and 
civilian--will act professionally and treat their shipmates with 
dignity and respect. The Navy has a zero tolerance policy for 
harassment. All commanders and commanding officers routinely reiterate 
this policy to their personnel and closely monitor their commands for 
potential issues such as these.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
Navy?
    Answer. I do not believe new strategies are required beyond 
reinforcement of existing policies, guidelines, and standards that 
emphasize dignity and respect for all.
    Question. Do Navy policies regarding religious practices in the 
military accommodate, where appropriate, religious practices that 
require adherents to wear particular forms of dress or other articles 
with religious significance?
    Answer. Current Department of the Navy policy is to accommodate the 
doctrinal or traditional observances of the religious faith practiced 
by individual members when these doctrines or observances will not have 
an adverse impact on military readiness, individual or unit readiness, 
unit cohesion, health, safety, discipline or mission accomplishment. 
Accommodation of a servicemember's religious practices cannot be 
guaranteed at all times and is subject to military necessity. 
Determination of necessity rests entirely with the commanding officer.
    When approved by competent military authority, religious apparel 
not visible or otherwise apparent may be worn with the uniform, 
provided it does not interfere with the performance of the member's 
military duties or interfere with the proper wearing of any authorized 
article of the uniform. Visible items of religious apparel will be 
authorized for wear with the uniform, except when the item is not neat 
and conservative (i.e. discrete, tidy and not dissonant or showy in 
style, size, design, brightness or color), its wearing will interfere 
with the performance of the member's military duties, or is 
specifically prohibited if the item impairs the safe and effective 
operation of weapons, military equipment or machinery; poses a health 
or safety hazard to the wearer or others; interfere with the wearing or 
proper functioning of special or protective clothing or equipment (e.g. 
helmets, flak jackets, flight suits, camouflage uniforms, gas masks, 
wet suits, and crash and rescue equipment). Furthermore, visible items 
of religious apparel shall not be worn while wearing historical or 
ceremonial uniforms; participating in review formations, parades, honor 
or color guards and similar ceremonial details and functions.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. Yes. It is Department of the Navy policy to foster mutual 
respect for diverse religious expressions (including no religious 
expression) and to accommodate the doctrinal or traditional observances 
of the religious faith practiced by individual members when these 
doctrines or observances will not have an adverse impact on military 
readiness, individual or unit readiness, unit cohesion, health, safety, 
discipline or mission accomplishment.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes. Title 10 Sec. 6031 says, ``An officer in the Chaplain 
Corps may conduct public worship according to the manner and forms of 
the church of which he is a member.'' Navy policy on public worship as 
set forth in SECNAVINST 1730.7D supports this Title 10 guarantee, i.e. 
``a chaplain may conduct divine services `according to the manner and 
forms' of his or her Religious Organization.'' When inviting a chaplain 
to deliver religious elements such as prayer at a command function 
outside of public worship, a commander shall not compel the chaplain to 
pray in a way that is inconsistent with the tenets of his or her faith 
and the chaplain may choose not to participate without suffering 
adverse consequence.
    When religious elements are incorporated in command functions 
outside of public worship, such as changes of command, where all 
members of the command are required to be present, chaplains are 
instructed to be sensitive to the needs of the total audience.
    Question. Current policy in DOD gives discretion to military 
leaders to decide whether requests to waive uniform and appearance 
standards should be granted based on religious beliefs. The DOD has 
submitted a legislative proposal that would clearly exempt the armed 
services from the requirements of the Religious Freedom Restoration Act 
(RFRA).
    Do you believe that the Navy needs to be exempted from the 
strictures of RFRA? If so, why?
    Answer. Our current policy provides our commanders adequate ability 
to provide religious accommodation and is supported. I am aware of this 
legislative proposal, but have not had the opportunity to assess the 
need for a change to our current policy.
             support for wounded, injured, and ill sailors
    Question. Wounded servicemembers from Operations Enduring Freedom, 
Iraqi Freedom, and New Dawn deserve the highest priority from the Navy 
for support services, healing and recuperation, rehabilitation, 
evaluation for return to duty, successful transition from active duty 
if required, and continuing support beyond retirement or discharge. 
Yet, as the revelations at Walter Reed Army Medical Center (WRAMC) in 
2007 illustrated, all of the Services were not adequately prepared to 
meet the needs of returning wounded servicemembers. Despite the 
enactment of legislation and renewed emphasis, many challenges remain.
    In your view, what were the most critical shortcomings in warrior 
care since 2001 in the Navy?
    Answer. We have no higher priority than caring for Wounded, Ill and 
Injured shipmates. I believe we have made significant improvements in 
the care for our Wounded Warriors and their families; yet all of us 
remain concerned about the cumulative effects of stress, worry and 
anxiety due to a decade-long conflict on our sailors and their 
families. I also understand that preserving the psychological health of 
personnel is one of the greatest challenges we face today. We are 
learning more about injuries such as Post-Traumatic Stress Disorder and 
Traumatic Brain Injury and ensuring our sailors have access to the best 
treatment available to support their recovery. Fortunately, we are 
seeing historically unprecedented survival rates and dramatic 
innovations in the combat casualty care on the battlefield. However, 
we, like the other Services, also are seeing more complex battle 
injuries as our personnel return to heal. We must continue to develop 
our systems of support and recovery for our sailors and families.
    Question. What is your assessment of the Navy's response?
    Answer. The Navy has made significant progress in developing 
programs that support the treatment, recovery and reintegration of our 
wounded sailors and their families. Our medical facilities are 
providing world-class care--and I am reminded of this each time I visit 
our wounded personnel. Our programs of support are in place and 
maturing as we adapt to the needs of our patients. Throughout the 
Fleet, we have developed an integrated health promotion and prevention 
program, Operational Stress Control, to help build resiliency at all 
levels. We have implemented targeted programs such as Families 
OverComing Under Stress (FOCUS), Returning Warrior Workshops and 
Psychological Health Outreach Program to ensure both our Active and 
Reserve component personnel and their families have access to support 
programs.
    Question. How does the Navy provide follow-on assistance to wounded 
personnel who have separated from active service and transition 
assistance to help sailors who are disabled find rewarding employment 
prior to separation?
    Answer. We recognize how important it is for our injured sailors to 
heal in body, mind and spirit and we honor our commitment to provide 
the support and resources to aid in their recovery and transition. We 
have significantly increased our medical case management resources at 
our treatment facilities to help our wounded, ill and injured personnel 
not only recover but also assist in the coordination of their care. 
These efforts extend to helping our sailors transition their medical 
care to the Veterans Administration or TRICARE networks/civilian 
clinician to provide better care and seamless service and support. Our 
Navy Safe Harbor program has responsibility for coordinating the non-
medical care of wounded, ill, and injured sailors and their families. 
This program provides exceptional, individually-tailored assistance to 
our wounded, ill, and injured for the duration of their lives. We have 
increased our support for community reintegration through the Anchor 
Program, which pairs members with volunteer Reserve component sailors 
in their communities, and initiated the Adaptive Athletics Program, 
designed to support long-term recovery and rehabilitation through 
whole-body training and education. Additionally, we signed Memoranda of 
Agreement with the Departments of Labor and Veterans Administration to 
ensure greater access to employment services and support programs.
    Question. How effective, in your view, are those programs?
    Answer. I am pleased with the progress and effectiveness of all 
these programs. Assessing their efficacy, adapting to the needs of our 
personnel and their families and implementing best practices will 
remain priorities as we move forward. We are engaged and committed to 
ensuring resources will be in place to meet our commitments to sailors 
and their families.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. We are grateful to the support that Congress has provided 
in this important area. I remain confident we have good programs in 
place that will continue to mature and improve. If confirmed, I will 
continue to build on the progress we have made within the Navy and our 
collaborative engagements with the VA and other Federal and private 
sector partners.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program, and now an Integrated DES program have been 
established to improve processing of servicemembers.
    What is your assessment of the need to further streamline and 
improve the Integrated DES (IDES)?
    Answer. The IDES provides the process and administrative framework 
necessary to fulfill the requirements of Title 10 U.S.C., Chapter 61. 
Designed to function within existing laws, IDES leverages military core 
competencies to determine servicemember fitness for continued service 
via the Medical Evaluation Board and Physical Evaluation Board (PEB) 
processes. Under IDES protocols, the Veterans Administration leverages 
their core competencies to render the disability rating percentages 
needed to establish both title 10 and title 38 disability compensation. 
IDES brings these core competencies together to minimize duplicative 
burdens on the member and the departments while maximizing support 
through the seamless availability of post-service benefits for our 
wounded, ill, or injured (WII).
    While the IDES process delivers many significant improvements over 
the Legacy DES, it does not provide the desired end-state for 
disability processing because it takes too long to process 
servicemembers (avg 400 days). Navy supports ongoing OSD and VA efforts 
to compress the processing down to a more efficient and acceptable 
duration that limits undesirable personnel and operational impacts.
    Question. If confirmed, how will you address any need for change?
    Answer. A principle focus for change must be on reducing the amount 
of time consumed by the IDES process without affecting the quality of 
support to our WII servicemembers. We continue to support WII 
servicemembers and our mission needs by supporting process design 
changes in IDES that are under consideration, adequately resourcing 
capabilities such as PEB liaison officers at medical treatment 
facilities, and better leveraging capabilities that exist within Armed 
Forces Health Longitudinal Technology Application (AHLTA).
       non-worldwide deployable sailors and disability evaluation
    Question. The Navy has used involuntary administrative separation 
for unsuitability as a means to remove from Active Duty sailors with 
medical conditions who were found fit for duty by physical evaluation 
boards. Previous Navy policies authorized denial of re-enlistment of 
sailors considered to be non-worldwide deployable, even if they had 
been found fit for duty, or had not been evaluated in the disability 
evaluation system.
    What is current Navy policy regarding the retention of sailors who 
are non-worldwide deployable due to physical or medical conditions?
    Answer. Section 534 of NDAA for Fiscal Year 2011 restricts the 
involuntary administrative separation of personnel found fit by a 
Physical Evaluation Board if later found unsuitable due to the 
inability to deploy for the same medical condition. We are complying 
with the new law. SECNAV policy is that those retained on active duty 
after a finding of ``fit'' should not be denied reenlistment or other 
career progression simply because of the finding. These individuals 
shall receive the same opportunity to compete with other sailors for 
reenlistment and promotion.
    implementation of the repeal of ``don't ask don't tell'' policy.
    Question. The President, Secretary of Defense, and the CJCS have 
certified to Congress that repeal of the Don't Ask Don't Tell 
homosexual conduct policy will not harm military readiness, military 
effectiveness, unit cohesion, or recruiting and retention. The statute 
underlying the Don't Ask Don't Tell policy will be repealed on 
September 20, 2011, 60 days from the date of this certification.
    Do you support the repeal of the Don't Ask Don't Tell Policy?
    Answer. Yes.
    Question. If confirmed, do you foresee any problems with 
implementing a repeal of the Don't Ask Don't Tell policy in the Navy?
    Answer. No.
    Question. What effect, if any, do you anticipate the repeal will 
have on readiness and discipline in the Navy?
    Answer. I have every confidence that the men and women of the U.S. 
Navy, with their character, discipline, and decency, will successfully 
implement this change in the law and continue to fulfill the U.S. 
Navy's mission with the utmost professionalism. As always, strong 
leadership remains essential to a successful transition. Navy leaders 
will continue to set a positive tone, create an inclusive and 
respectful work environment, and enforce our high standards of conduct 
as we serve the Nation.
                 sexual assault prevention and response
    Question. What is your understanding of the resources and programs 
the Navy has in place on ships, overseas, and in CONUS locations to 
offer victims of sexual assaults the medical, psychological, and legal 
help that they need?
    Answer. Sexual assault is a criminal act that has far-reaching 
consequences for all involved. It violates the Navy ethos, corrodes 
morale, undermines trust, and will not be tolerated. A DOD Safe Help 
line number is available to all and widely posted in command spaces and 
websites to ensure immediate ``hotline'' support. Our resources and 
programs are distributed so that all deployable Navy units have Sexual 
Assault Prevention and Response (SAPR) Victim Advocates (VAs) and SAPR 
Command Points of Contact (POCs) assigned. This ensures continuity of 
victim support regardless of whether the unit is shore based or at sea. 
Deployed units have ready access to medical, investigative and legal 
support, and the unit VAs have reachback to a Sexual Assault Response 
Coordinator (SARC).
    To ensure resource and program availability in a joint environment, 
joint protocols have been developed and joint SARCs meet regularly to 
outline, understand and mitigate differences in SAPR program 
requirements. The key is to ensure standardized coordination of SAPR 
responses across all Services.
    Individual Augmentees (IAs) receive pre-deployment briefings from 
IA Support/Deployment Specialists at the Fleet and Family Support 
Centers (FFSC) that include specific contacts for both sexual assault 
reporting options.
    Question. What is your view of the steps the Navy has taken to 
prevent sexual assaults?
    Answer. While significant progress has been made to date, we are 
continuing to implement further enhancements to contribute to ongoing 
efforts to eliminate sexual assault from the Navy:

        <bullet> We are implementing Bystander Intervention training to 
        teach sailors how to safely and effectively intervene to 
        prevent sexual assault and other negative behaviors.
        <bullet> Sexual Assault Response Coordinators have been 
        provided 2 full days of training to better equip them in the 
        collection of data and standardized training for prevention.
        <bullet> Naval Criminal Investigative Service (NCIS) and the 
        Judge Advocate General (JAG) of the Navy have implemented 
        specialized training to more effectively investigate and 
        prosecute sexual assault cases.
        <bullet> We are conducting a pilot prevention program, 
        developed in collaboration with national experts, which uses 
        multiple prevention modalities based on local demographics and 
        circumstances. Rigorous pre- and post-pilot survey data will 
        show the efficacy of these modalities and determine 
        applicability to other locations.

    Question. What is your view of the adequacy of the training and 
resources the Navy has in place to investigate and respond to 
allegations of sexual assault?
    Answer. Navy provides robust training for investigators and 
prosecutors of sexual assaults. All NCIS agents are trained to be 
``first responders'' to sexual assaults and other criminal activity, 
and attend courses that combine prosecutors and investigators in a 
shared environment that enhances cross discipline understanding. NCIS 
agents have recently attended the U.S. Army's advanced course on sexual 
assault investigative techniques and several other seminars and courses 
taught by nationally recognized experts.
    Members of Navy's Judge Advocate General Corps attend a course on 
litigating sexual assault at Naval Justice School. JAGs also attend a 
course on prosecuting alcohol facilitated sexual assaults, prosecuting 
complex cases (which includes a section on Victim Witness Assistance 
Program). Navy has hired two nationally recognized experts on adult and 
child sexual assault and child physical abuse litigation to provide 
field-level legal training and case consultation, and provide policy 
support for the Navy SAPR program.
    Question. Do you consider the Navy's sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Navy's policies and execution of confidential reporting 
(Restricted Reports) are effective. We continue to emphasize to 
sailors, SAPR stakeholders and leadership, the policy and importance of 
a restricted reporting option. A 2010 SAPR Quick Poll indicated that 
nearly 92 percent of respondents are aware victims can report sexual 
assault without command notification (Restricted Reporting).
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Close-quarters environments such as controlled basic 
training educational environments and brigs for ``incarcerated'' 
sailors provide a challenge with regards to confidential reporting. 
Solutions to address these situations are being investigated. 
California state law has also caused confusion due to state-mandated 
reporting for all medical personnel. Our California-based SARCs 
continue to educate leaders and responders to ensure compliance with 
policy and victim privacy when considering the ``restricted'' reporting 
option.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Navy in overseeing the 
effectiveness of implementation of new policies relating to sexual 
assault?
    Answer. Preventing sexual assaults is the job of all Navy 
leadership. It mandates a synergistic approach by military and civilian 
leaders. The Department of the Navy established a Sexual Assault 
Prevention and Response Office and Director in 2009 to serve as the 
principal point of accountability for all sexual assault matters, 
program support, and oversight. From the SECNAV on down, we are 
committed to eliminating sexual assault from our ranks. A key to 
success is the understanding and engagement by unit level leaders.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Navy efforts on 
sexual assault prevention and response?
    Answer. At a minimum, I intend to maintain strong and viable Family 
support programs by ensuring adequate oversight and sufficient funding. 
I will remain open to initiatives designed to further evolve existing 
programs and look for innovative ways to help our sailors and families 
become more resilient and ready to meet the enduring demand for Navy 
forces.
                             family support
    Question. Sailors and their families in both the Active and Reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of growing concerns among military families as a result of the stress 
of frequent deployments and the long separations that go with them.
    What do you consider to be the most important family readiness 
issues for sailors and their families, and, if confirmed, how would you 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. Family Readiness is critical to Fleet readiness and sailor 
retention. If confirmed, I intend to continue supporting Navy families 
with a variety of institutionalized programs and resources to meet 
their needs. Our existing programs cover everything from Exceptional 
Family Members and Respite care to deployment preparedness, ensuring 
our sailors and their families are cared for while deployed.
    Navy will continue to pursue opportunities to optimize services, 
including counseling, family and youth development programs, and 
deployment readiness to ensure our sailors continue to have access to 
the necessary resources that enable readiness while minimizing stress 
and impact to their loved ones at home.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and declining O&M budgets?
    Answer. Navy will preserve the current Family Readiness budget plan 
and has realigned funding from supplemental requests and overseas 
contingency funds to our baseline budget requests. We have consolidated 
oversight to ensure all Family Readiness programs are adequately 
sustained and fully resourced as required.
    Question. If confirmed, how would you ensure support to Navy 
Reserve families related to mobilization, deployment, and family 
readiness, as well as to active duty families who do not reside near a 
military installation?
    Answer. Navy supports geographically isolated servicemembers and 
their families through the nearest DOD facility whether a Navy 
Operational Support Center or other sister service installation. If a 
support site is not conveniently located nearby, then Navy provides 
remote support through our network of FFSCs and Military OneSource.
    In support of Individual Augmentee (IA) spouses and family members, 
FFSCs have developed programs tailored to their specific needs, such as 
IA Family Handbook, Deployment Readiness Briefs, IA Family Discussion, 
Family Connection Newsletter and Families of Warriors in Transition 
Homecoming Program, and Active and Reserve Command IA Coordinators 
(CIAC), whose primary responsibility is to serve as the Navy liaison to 
IA sailors and families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. At a minimum, I intend to maintain strong and viable family 
support programs by ensuring adequate oversight and sufficient funding. 
I will remain open to initiatives designed to further evolve existing 
programs and look for innovative ways to help our sailors and families 
become more resilient and ready to meet the enduring demand for Navy 
forces.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services has 
increased in recent years. In addition, mental health surveys conducted 
in theater are showing declines in individual morale and increases in 
mental health strain, especially among those who have experienced 
multiple deployments.
    In your view, are Navy suicide prevention and resiliency programs 
adequate to help prevent suicides both in homeports and on deployment, 
and to increase the resiliency of sailors and their families?
    Answer. Yes. I am committed to doing everything possible to prevent 
the tragedy of suicide and provide our sailors, families, and leaders 
with the tools, training, and environment to allow them to successfully 
navigate the stress of Navy life and thrive personally and 
professionally. Within the past 6 months, Navy has significantly 
increased staffing and resources devoted to supporting Navy suicide 
prevention program and institutionalizing resilience building both 
ashore and within the Fleet. Resilience cannot be built in a day. It 
will require time to fully take root and grow. As our efforts continue 
to mature, ongoing assessment will guide further improvement.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to Navy personnel on 
deployment, and to their families upon return to home station?
    Answer. Navy is committed to fostering a culture that promotes 
resilience and wellness and empowers our leaders to ensure the health 
and readiness of our sailors and families. Our Psychological Health 
program supports the prevention, diagnosis, mitigation, treatment, and 
rehabilitation of post-traumatic stress disorder, and other mental 
health conditions, including planning for the seamless transition of 
such members throughout the recovery and reintegration process.
    Through active leadership, we are also working to reduce the stigma 
associated with seeking help. We have increased the size of our mental 
health workforce and continue to focus on recruiting and retention of 
our mental health providers. Our priority is ensuring we have the 
service and support capabilities for prevention and early intervention 
available where and when it is needed, including in operational 
environments. Embedded mental health providers provide coordinated, 
comprehensive primary and secondary prevention efforts throughout the 
deployment cycle, focusing on resilience training and stress reduction. 
In order to understand the behavioral health needs of our sailors 
serving in theatre, we deployed a Mobile Care Team to administer the 
Behavioral Health Needs Assessment Survey which allows real-time 
surveillance and intervention as needed.
    If confirmed, I will continue to ensure we have the proper number 
of mental health providers in place to address the medical, physical, 
psychological, and family readiness needs of our sailors and their 
families.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel, and their eligible family 
members.
    What challenges do you foresee in sustaining and enhancing Navy MWR 
programs and, if confirmed, what improvements would you seek to 
achieve?
    Answer. The major challenges facing MWR are maintaining adequate 
funding, repairing or replacing aging infrastructure, and dealing with 
increased demand for certain core services, particularly in the area of 
child and youth programs. We have and will continue to take aggressive 
actions to address these challenges. In the area of child and youth 
programs, for example, Navy has funded dozens of new Child Development 
Centers that, by the end of fiscal year 2012, will increase capacity by 
over 7,000 spaces. When these centers are completed, we will have 
almost entirely eliminated unmet demand for child care spaces.
    I believe we should continue to expand our stable of partners in 
the private and public sector off base as we build on our past track 
record of success in ensuring Navy MWR programs measure up to the needs 
of our sailors and their families.
                         women in the military
    Question. In the past year, the Navy has opened service on 
submarines to women, and the issue of the appropriate role of women in 
the Armed Forces is a matter of continuing interest to Congress and the 
American public.
    What is the status on the implementation of the decision to allow 
service by women on submarines?
    Answer. In 2010, 18 female officers began their submarine officer 
pipeline training, which consists of nuclear power school, prototype 
training and the submarine officer basic course. Two officers deferred 
their training to complete follow-on graduate studies. The first 16 
officers will complete training and report to their submarines between 
November 2011 and February 2012. Eight female warfare-qualified supply 
officers have been selected to serve as department heads to provide 
senior female mentoring. We have applied lessons learned from 
integration of women in surface combatants and aviation squadrons in 
the mid-1990s and have incorporated those into our comprehensive women 
in submarines integration plan.
    Question. What challenges still exist and what proactive measures 
are submarine force leaders taking to enhance the success of female 
officers assigned to submarine duty?
    Answer. Submarine crews that are slated to be integrated will 
receive appropriate training on fraternization, berthing/privacy 
requirements, Navy's Equal Opportunity policy, prevention of sexual 
harassment, and sexual assault and rape prevention. Executive level 
training will ensure that commanding officers, executive officers and 
chiefs of the boat are prepared to lead an integrated crew. Independent 
Duty Corpsman assigned to each submarine to be integrated will receive 
refresher training on medical situations unique to women. A Command 
Climate Survey will be conducted on each crew prior to certification 
and again about 6 months after integration to evaluate and address any 
unanticipated concerns and challenges that may arise.
    Question. Do you believe additional specialties should be eligible 
for service by female sailors?
    Answer. Navy continues to examine opportunities for additional 
specialties for female sailors. Navy modified its policy in 2007 to 
allow the temporary assignment of women to units normally closed if the 
unit is not expected to conduct a combat mission during the period of 
temporary duty. Since that time the Navy Special Warfare (NSW) Command 
has deployed 10 to 15 females to the CENTCOM region with each NSW 
Squadron for support operations (intelligence, administrative, legal, 
information technology, and construction ratings). From 2008 through 
the present, certain NSW operational successes have been directly 
related to the rapport Navy females have been able to develop with both 
indigenous women and men. Leveraging unique cultural skills of women, 
NSW has been able to gain access, develop key relationships, calm tense 
situations, and locate individuals of interest.
    Question. Do you believe any changes are needed or warranted in 
current assignment policies regarding women?
    Answer. At present, the Navy's assignment policies for women are in 
the best interest of the naval service, accomplished per current 
Secretary of Defense guidelines, and are consistent with the principles 
of fairness and equal opportunity. However, we continue to evaluate 
opening other opportunities as appropriate. As part of our current 
review of restrictions on women in the Navy, we have identified a 
number of medical and chaplain support billets assigned to Marine Corps 
units that could potentially be opened to women.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel, and related 
entitlement spending continues to grow and is becoming an ever 
increasing portion of the DOD budget. Secretary Panetta has supported a 
comprehensive review of military compensation, saying ``everything must 
be on the table,'' including military retirement.
    What percentage of the annual Navy budget from 2011 to 2015 is 
devoted to personnel costs?
    Answer. The percentage of the annual Navy budget, from 2011 to 
2015, devoted to Active and Reserve military personnel costs is 
approximately 23 percent. This is comprised of the Military Personnel, 
Navy (MPN); and Reserve Personnel, Navy (RPN) payments to the Medicare-
Eligible Retiree Health Care Fund (MERHCF).
    Question. Do you believe the time is right to begin discussing 
reform of military compensation and retirement benefits?
    Answer. I support Secretary Panetta's call for a comprehensive 
review of military compensation, including the retirement benefit. If 
confirmed, I will support the Navy's continued participation in ongoing 
efforts to assess the cost, value and effectiveness of all parts of the 
military compensation system.
    Question. Other than reducing Navy end strength, what actions do 
you believe can be taken by DOD and Navy leaders to control the rise in 
personnel costs and entitlement spending?
    Answer. Reviews of military compensation are currently ongoing. I 
will use the results of these reviews to inform my judgments.
                          military retirement
    Question. The 10th Quadrennial Review of Military Compensation 
proposed a new defined benefit retirement plan that more resembles the 
benefits available under the Federal Employee Retirement System than 
the current military retirement benefit; increasing TRICARE fees for 
retirees; and the adoption of dependent care and flexible spending 
accounts for servicemembers. Both Secretary Gates and Secretary Panetta 
have called for a comprehensive review of the military retirement 
benefit.
    While it is often said that the military retirement benefit 
encourages retention after the 10-year point, do you believe it 
provides any significant boost to recruitment? Do 17 and 18 year olds 
care about the military retirement benefit when deciding to enlist?
    Answer. The current retirement benefit is better suited to enhance 
retention than to serve as an enlistment tool. While a generous 
retirement benefit relative to the private sector is a good recruiting 
point, the retirement benefit is not at the top of the list of things 
that attract new recruits to the Navy. During a recent poll of new 
recruits, military retirement ranked seventh among reasons for joining.
    Question. How might the retirement benefit be modernized to reflect 
the needs of a new generation of recruits, while easing the long-term 
retirement cost of the government?
    Answer. The overwhelming majority of those who enter military 
service never qualify for the 20 year military retirement, therefore, 
many servicemembers would benefit from some form of a defined 
contribution plan that offered vesting short of a full military career. 
Navy has not yet studied this option well enough to define how certain 
contribution plans might impact recruitment and retention.
                         judge advocate issues
    Question. In December 2010, the DOD Inspector General completed an 
evaluation of post-trial reviews of courts-martial within the 
Department of the Navy--triggered in part by the egregious case of 
United States v. Foster--documenting the persistence of serious post-
trial processing problems within the Navy and Marine Corps for at least 
two decades.
    If confirmed, what actions will you take to address the post-trial 
processing issues identified by the DOD Inspector General?
    Answer. I am confident that given the improvements in structure, 
operating procedures, case tracking and oversight that have been 
undertaken to date, we have a military justice system that works as 
intended. I will continue to support all efforts to address the issue 
of post-trial processing.
    Question. The Inspector General concluded that current Navy and 
Marine Corps case-tracking systems do not provide the visibility needed 
to monitor case progress and timeliness throughout the post-trial 
process and recommended the development of a single Navy and Marine 
Corps military justice case processing and tracking system.
    What is the current plan for the development of a single Navy and 
Marine Corps military justice case processing and tracking system?
    Answer. Efforts are ongoing within the Department to develop a 
unified case-tracking system for the Navy and Marine Corps and a joint 
effort is currently in progress to formally establish a new acquisition 
program for the Naval Justice Information System (NJIS). In the 
interim, the Judge Advocate General's Corps has continued to use the 
Navy Case Management Tracking Information System (CMTIS) to track every 
case while the new systems are being developed.
    Question. Will this case tracking system be funded by the Navy?
    Answer. Yes, Navy will fund the system.
    Question. At the direction of Congress, the Secretary of Defense 
appointed an independent panel to review the judge advocate 
requirements of the Department of the Navy. This Panel issued a report 
in February, 2011, that concluded that ``there is a requirement in the 
U.S. Navy for approximately 950 active-duty judge advocates. The Panel 
noted that the Navy had 811 judge advocates on active duty at the end 
of fiscal year 2010, but had programmed further reductions in judge 
advocate manning over the next 5 years. The Panel expressed ``strong 
concern over the current and future manning levels for judge advocates 
in the Navy, believing those manning levels create an unacceptable 
legal risk to the Department of the Navy.'' Testimony at a recent 
hearing indicated that Navy leadership has now indicated an intent to 
fund 852 positions over the FYDP.
    What is your evaluation of the recommendations of the Independent 
Panel regarding the role and resources available to the Navy JAG Corps?
    Answer. I concur that we need to have adequate judge advocate 
manning to meet operational law and other requirements, including a 
first-rate military justice system. In the Navy, this issue is 
currently undergoing the required budget review process for 
implementation across the FYDP.
    Question. If confirmed, what actions will you take to ensure that 
the Navy Judge Advocate General's Corps is adequately manned to address 
the increasing complexity and intensity of the legal and policy 
environment in which commanders are required to operate?
    Answer. This issue is currently undergoing the required budget 
review process for implementation across the FYDP.
            defense incident-based reporting system (dibrs)
    Question. DIBRS is an information technology system funded and 
managed by the Defense Manpower Data Center and required under DOD 
Directive 7730.47. It is intended to provide more comprehensive data on 
the incidence and types of crimes committed within the Armed Forces. 
The Department of the Navy is developing a Department of the Navy 
Criminal Justice Information System (DONCJIS) to satisfy DIBRS 
reporting requirements but has been unable to predict when the system 
will be fully operational.
    What is the status of the Navy's implementation of DIBRS and 
DONCJIS?
    Answer. The DONCJIS was initiated but did not meet program 
requirements. The Department cancelled it in September 2010. Efforts 
are ongoing within the Department to develop a unified case-tracking 
system for the Navy and Marine Corps and a joint effort is currently in 
progress to formally establish a new acquisition program for the Naval 
Justice Information System (NJIS). As currently envisioned, this system 
will incorporate not only the Defense Incident-Based Reporting System 
(DIBRS) required data, but expand to include criminal justice case 
tracking and management.
    Question. What utility do you see for Navy's senior leaders in 
having the information available through DIBRS?
    Answer. The lack of such a functional database inhibits electronic 
interface and data sharing among all stakeholders of a criminal case 
and inhibits accurate data collection. We will continue to use the Navy 
Case Management Tracking Information System (CMTIS) to track every case 
while the new systems are being developed.
                      u.s. naval academy oversight
    Question. In November 2009, the Naval Inspector General submitted a 
report harshly critical of the financial management practices at the 
U.S. Naval Academy, which reflected a lack of oversight and supervision 
over the Academy's internal controls, regulatory compliance, and 
expenditure of appropriated and non-appropriated funds.
    What measures have been put in place to ensure that the financial 
management at the Naval Academy complies with the legal and regulatory 
requirements that apply to other comparable commands?
    Answer. The Naval Academy has worked closely with Navy leadership, 
including the Navy General Counsel and Office of the Judge Advocate 
General to improve meaningful oversight, improve guidance and foster 
continual self assessment of the Academy's financial management 
practices. After a series of reviews and audits, including the 2009 
Navy Inspector General report, 59 corrective actions were identified. 
To date, 49 of the 59 have been completed, including a comprehensive 
fiscal oversight review of Naval Academy Nonappropriated Fund 
activities by Commander, Navy Installations Command this month (July 
2011). In all, these efforts have resulted in improved and revised 
financial procedures, directives and instructions, including gift 
acceptance and expenditure guidance, ensuring the Academy is in 
compliance with relevant Navy and DOD instructions and policies.
    Question. What is your assessment of the changes that have been 
made to the Honor System at the Naval Academy following the review 
conducted last year by the Chief of Navy Reserve and what do you 
consider to be the most important reforms put into place?
    Answer. The changes to the Naval Academy Honor Concept have been 
very positive for the Brigade of Midshipmen and the Naval Academy as a 
whole. While several important reforms were adopted, improved 
educational understanding, process efficiency, consistent 
accountability and Brigade empowerment have been most notable. 
Specifically, the focus on refining the adjudication process has driven 
average adjudication time down to approximately 17 days, providing more 
immediate feedback to the Midshipmen on honor cases. Coupled with 
consistent application of the Honor Concept and increased ownership of 
the Honor Concept by the Brigade of Midshipmen, the Naval Academy has 
seen a significant drop in repeat honor offenses and honor offenses by 
upper classmen.
    Question. What changes, if any, would you recommend in the 
organization or functioning of the Naval Academy Board of Visitors?
    Answer. I wouldn't recommend changes in the organization or 
functioning of the Naval Academy Board of Visitors. Since the findings 
of the Navy IG, the Board of Visitors has taken an active and positive 
role in assisting the Naval Academy and providing oversight.
    Question. Following congressional direction, the DOD in August 
2007, established a policy regarding modification of the active-service 
obligation for service academy and ROTC scholarship graduates who are 
offered professional sports contracts. This policy is currently not 
being applied uniformly by the Departments of the Air Force, Navy, and 
Army.
    What is your personal view of the appropriate applicability of this 
DOD policy in the Navy?
    Answer. My view is that Navy personnel are first and foremost here 
to faithfully serve their country and fulfill their military commitment 
by completing their Active Duty Service Obligations (ADSO). I do 
believe however, in rare and exceptional cases, a Servicemember can use 
their exceptional talents in a mutually beneficial way to the Service 
and the member, after completing a shortened ADSO and then continue to 
actively engage in the military by participating in the Selected 
Reserves.
    The SECNAV recently updated the early release policy for the Navy 
and Marine Corps, removing a moratorium imposed in 2007 on applications 
for early release to participate in professional sports. This change in 
policy will again allow Naval Reserve Officers Training Corps and U.S. 
Naval Academy graduates to apply for early release from active duty 
after 2 years of service providing the requestor has relevant and 
proven special or unique talents that would aid in recruiting. This 
policy change aligns the Department of the Navy's application of the 
DOD policy with the Departments of the Air Force and Army. While the 
number of those allowed for an early release is expected to be small, I 
believe that those rare individuals with extraordinary abilities should 
be allowed to showcase their talents on a national stage when in the 
best interests of the Service.
                        independent legal advice
    Question. In your past assignments, you have had the opportunity to 
observe the working relationship between the Navy General Counsel, the 
Judge Advocate General of the Navy and judge advocates advising 
commanders in the field.
    What is your view of the need for the Judge Advocate General to 
provide independent legal advice to the CNO and the Commandant of the 
Marine Corps?
    Answer. The ability to provide independent legal advice is vital to 
the Navy. The law appropriately prohibits any officer or employee of 
DOD from interfering with the Judge Advocate General's independent 
legal advice to the SECNAV, CNO, and the Commandant of the Marine 
Corps.
    Question. What is your view of the responsibility of judge 
advocates within the services and joint commands to provide independent 
legal advice to military commanders?
    Answer. Commanders and commanding officers are obligated to discuss 
legal issues with their staff judge advocates. To provide legal 
solutions that address the legal challenges faced by our military 
commanders requires independence.
                         environmental concerns
    Question. The Navy has been involved in civil litigation over its 
use of mid-frequency active sonar during training exercises and its 
impact on the environment.
    What is the Navy doing to comply with environmental laws so it can 
continue to effectively train with mid-frequency active sonar?
    Answer. The Navy remains committed to accomplishing training goals 
while still achieving full compliance with all Federal environmental 
laws and regulations. Continued training with active sonar is 
absolutely essential in protecting the lives of our sailors and marines 
and defending our Nation. Increasingly quiet diesel-electric submarines 
continue to proliferate throughout the world, which requires our Navy 
to continue to train to counter them. Neutralizing this threat requires 
the ability to locate, track, and defeat these submarines; active sonar 
is the primary system to accomplish this task.
    The Navy continues to work closely with the National Marine 
Fisheries Service (NMFS) to receive annual permits under the Marine 
Mammal Protection Act and Biological Opinions under the Endangered 
Species Act. In 2002, the Navy began implementation of a comprehensive 
Phase I strategy to ensure compliance with applicable Federal laws. The 
process of completing this documentation, including the required 
analysis and public comment periods, was a multi-year effort and will 
continue indefinitely. As of July of this year, the Navy has completed 
environmental planning documentation for 13 of 14 Navy ranges and 
Operating Areas. This permitting process has ensured that the Navy 
mitigates its effect on the environment while still meeting national 
security requirements.
    The Navy has already begun work on Phase II at-sea Environmental 
Impact Statements and permits, significantly expanding the sound 
sources analyzed and including at-sea testing events that were not part 
of phase I permits and documentation. Consolidating the 14 Phase I Navy 
ranges and Operating Areas into 6 study areas will achieve greater 
consistency, efficiency, and integration of acquisition/military 
readiness/scientific research information in Navy environmental 
planning documentation and permits. The Navy continues to work closely 
with NMFS to ensure these Phase II documents and permits are informed 
by best available data, providing the most accurate representation of 
potential impacts to the marine environment. The first of these 
documents and permits is currently on track to be approved in early 
2014.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CNO?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                       purchasing f/a-18 aircraft
    1. Senator McCaskill. Admiral Greenert, I have often noted we can 
get 80 percent of the F-35's capability for a fraction of the cost by 
buying the most advanced F/A-18 aircraft--something the Navy has 
largely acknowledged. The President's Fiscal Commission made a similar 
recommendation. What do you think about the recommendation from the 
President's Fiscal Commission and other similar proposals to basically 
substitute F/A-18s and F-16s for about half of the Air Force's and 
Navy's planned buys of the F-35? They say this change could save about 
$9.5 billion.
    Admiral Greenert. The Navy's TACAIR transition plan is centered on 
a balanced force of F-35 and F/A-18E/F. F-35 and F/A-18E/F capabilities 
are complementary, and together deliver a balance of versatility, 
lethality, survivability, and capacity that will pace the threat 
through 2025. The FA-18E/F provides a proven combat capability and 
higher weapons capacity at a known cost modeled throughout its service 
life with planned capability enhancements. The F-35 offers reduced 
signature with improved sensors and command and control. A mix of F/A-
18 E/F and F-35 provides the capacity and capability to carry out the 
full range of tactical air operations and the requirement for both 
aircraft remains consistent with the DoN TACAIR transition plan.

    2. Senator McCaskill. Admiral Greenert, have you considered 
adopting the Fiscal Commission's option, and if not, why not?
    Admiral Greenert. Each year we consider modifications to the number 
of F-35 we purchase. This is part of our own budget deliberations and 
is also part of achieving the right mix of F-35 and F-18E/F aircraft in 
our future air wings. The Department of the Navy has historically 
managed its entire aircraft inventory in a purposeful and responsible 
manner, balancing future operational requirements with the need to 
maximize the utility of our current aircraft. The F-35 and FA-18E/F 
provide complementary capabilities across the spectrum of conflict and 
the requirement for both aircraft remains consistent with the DoN's 
TACAIR transition plan. Purchasing both aircraft represents a solution 
to the strike-fighter shortfall and provides proven conventional combat 
capability and capacity to support anticipated Carrier Strike Group 
mission requirements through 2025.
                                 ______
                                 
               Question Submitted by Senator Mark Begich
                         arctic climate change
    3. Senator Begich. Admiral Greenert, the Navy has been at the 
forefront of Arctic issues and studying climate change. Your 
predecessor, Admiral Roughead, understood that Arctic requirements will 
fall largely on the Navy and he was already preparing for them, 
establishing a Task Force Climate Change and producing an Arctic 
Roadmap in 2009. The Arctic Roadmap called for a number of actionable 
items. If confirmed, do you intend to continue this work on the Arctic 
and climate change, to include executing the actionable items in the 
Arctic Roadmap?
    Admiral Greenert. Yes, I intend to continue the work initiated by 
Admiral Roughead on the Arctic and climate change. I believe that 
climate change and the Arctic will be a challenge to Navy. In my 
remarks at the Navy Climate Change and Energy Symposium in March of 
this year, I encouraged the Navy and industry to take the discussion 
and ideas generated from the symposium toward future programmatic 
options.
    The Navy views the Arctic as an emerging theater that may require 
new programs to face the unique challenges of the region. The 
challenges will be similar to those when the Navy first started 
operating in the Persian Gulf, where our equipment was not optimized 
for operations in the new environment. The Navy must also consider the 
Arctic in our concept of operations especially with respect to our 
surface ship capabilities in conducting cold weather operations. I 
recognize that the Navy has to balance preparation for an opening 
Arctic against other global commitments and fiscal pressures, but we 
are taking a deliberate approach to the Arctic. This includes 
conducting studies and assessments that will inform us of gaps in our 
capabilities to operate in the region, and yet not buying ahead of 
need.
    Outside of the Arctic, global climate change will present 
additional challenges to our Navy. We are beginning to study the 
effects that sea level rise and associated processes will have on our 
installations worldwide. We are closely monitoring the effects of 
changing precipitation and resource patterns around the world to 
determine how they may affect humanitarian assistance, and we are 
identifying partnerships that will ensure the Navy leverages a whole-
of-government approach to climate change adaptation.
    The Arctic and Climate Change Roadmaps include action items that 
move the Navy forward in the efforts needed to meet these challenges. 
The roadmaps are vital tools for preparing the Navy for the future and 
ensuring that we are ready and capable to meet the mission requirements 
of the 21st century.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                  submarine support for special forces
    4. Senator Shaheen. Admiral Greenert, the four current Ohio-class 
cruise missile submarines (SSGN) are scheduled to be retired between 
fiscal years 2026 to 2028. These boats have been particularly useful in 
providing our combatant commanders with both additional strike 
capability and Special Forces support. I understand the Navy is 
considering adding, to at least some of the future Virginia-class subs, 
an additional mid-body section equipped with large-diameter vertical 
launch tubes suitable for cruise missiles to replace some of the strike 
capability lost with the end of the SSGNs. I am concerned there is no 
current plan to replace the SSGN's capability to support larger Special 
Forces Operations. Could you share with me the Navy's plans to 
accommodate future covert Special Forces Operations too large for 
Virginia-class submarines once the SSGNs reach the end of their service 
life?
    Admiral Greenert. While an individual Virginia-class attack 
submarine (SSN) does not provide the same volume as an SSGN for support 
of Special Forces, the Virginia-class is the first SSN class designed 
up front to support Special Forces. As a result, all Virginia-class 
SSNs have many of the same capabilities to support Special Forces as 
the SSGN including: the ability to host a Dry-Deck Shelter, the ability 
to conduct swimmer lock-in and lock-out, advanced ship control for 
slow-speed station keeping, and dedicated spaces for Special Forces 
fitness and stowage. In the future, as the SSGNs retire from the 
inventory, the entire Virginia-class will be ready to support a wide 
range of Special Forces Operations.
    The Navy will continue to work closely with Commander, Special 
Operations Command (SOCOM) to define the long-term requirements for 
undersea mobility of Special Forces. As the Navy evaluates options to 
restore undersea payload volume, such as the mid-body section described 
above, we will also continue to consider the need for enhanced Special 
Forces support.

                            public shipyards
    5. Senator Shaheen. Admiral Greenert, according to a 2009 
Government Accountability Office report, the Navy had a backlog of $3 
billion in unfunded, yet absolutely critical, infrastructure projects 
at the Nation's four public shipyards. At Portsmouth Naval Shipyard 
alone, the unfunded requirements were valued at $513 million. Going 
forward, how will the Navy prioritize investments and support 
modernization at each of the four public shipyards?
    Admiral Greenert. With workforce safety, health, and quality of 
life as top priorities, the Navy develops projects to improve shipyard 
efficiency and productivity, based on Infrastructure Condition 
Assessment Program (ICAP) and Asset Evaluation (AE) program data.
    Regrettably we are unable to address every shortfall in the desired 
timeframe due to fiscal constraints; therefore, shipyard projects are 
evaluated and prioritized with all other Navy infrastructure projects. 
Our shore investments are prioritized to best enable warfighting and 
Joint capabilities, minimize the decline of mission-essential and 
quality of life infrastructure, and optimize warfare enterprise outputs 
and quality of service.
    The Navy continues to invest in Naval Shipyard infrastructure 
within today's fiscally constrained environment through Sustainment 
(ST), Restoration and Modernization (RM), and Military Construction 
(MILCON). U.S. Code Title 10, Section 2476, requires that the Navy 
invest at least 6 percent of intermediate and depot maintenance funds 
(averaged over the previous 3 years) into the shipyard recapitalization 
program. The Navy spent 9.5 percent, 9.9 percent, and 15.6 percent of 
these funds on shipyard recapitalization in fiscal year 2008 through 
fiscal year 2010, respectively, and is in the process of investing 11.1 
percent in fiscal year 2011.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          defense budget cuts
    6. Senator McCain. Admiral Greenert, in a House of Representatives 
hearing yesterday you testified in response to a question about the 
possibility of drastic defense budget cuts ranging from $400 billion to 
a trillion dollars over the next 10 years that, ``without a 
comprehensive strategic review, a fundamental look at what we were 
asking our forces to do, without a change in activity, we won't be able 
to meet the global force management plan today.'' As Vice Chief of 
Naval Operations, are you taking part in DOD's comprehensive strategic 
review?
    Admiral Greenert. As Vice Chief of Naval Operations, I was 
personally involved in decisional and informational meetings associated 
with DOD's comprehensive strategy review. This review involves inter-
Service working groups and initiatives including the Joint Staff 
``Operational Availability 2012'' analysis, the Director, Cost Analysis 
and Program Evaluation (CAPE) ``Comprehensive Review,'' and Deputy 
Secretary of Defense Advisory Working Group (DAWG) meetings. These 
initiatives and analyses were helpful in establishing the impact on 
Joint Force Structure, missions, and capabilities associated with 
changing priorities or requirements inherent in today's DOD strategic 
and programmatic guidance. Until we revise today's strategy--what we 
are asking our forces to do--we will not have a sustainable global 
force management plan for the expected fiscal environment. Regardless, 
I remain personally committed to not allowing across-the-board cuts 
with unchanged operational demands to hollow out the force.

    7. Senator McCain. Admiral Greenert, is the review an objective 
look at our national security commitments or an exercise to find at 
least $400 billion to a trillion dollars?
    Admiral Greenert. The need to reduce Federal deficits initiated the 
review. The review is part of the ``ways and means'' to an end state of 
remaining within fiscal guidance.

    8. Senator McCain. Admiral Greenert, if the Navy is asked to 
significantly cut budgets during your tenure as Chief of Naval 
Operations (CNO), what programs or other current activities do you 
think you can cut or scale back?
    Admiral Greenert. There are no obvious programs or activities to 
make further reductions. Today, the Navy is unable to meet unrestrained 
combatant commander demands. In the fiscal year 2012 budget Navy 
proposes to cut overhead to reinvest in our ability to provide forces. 
It would be imprudent to make further overhead reductions without first 
evaluating the impact of these cuts. Going forward, we will have to 
make reductions based on an evaluation of the level of budget cuts and 
the strategic priorities DOD establishes to defend the Nation. In 
meeting this challenge, my intention would be to:

        <bullet> Prioritize readiness to ensure the force we have is 
        fully mission capable
        <bullet> Ensure our sailors, civilians, and their families are 
        properly supported
        <bullet> Sustain relevant Navy-unique capabilities that support 
        the Joint Mission
        <bullet> Ensure a coherent balance of capability and capacity 
        of the force, and
        <bullet> Consider the stability of the industrial base

                          navy ship readiness
    9. Senator McCain. Admiral Greenert, I remain concerned about what 
I see as an overall downward trend in ship maintenance funding and a 
commensurate rise in ship inspection failures. In a House Armed 
Services Committee hearing this week you testified, ``there is a 
consistent, downward trend in some indicators of material readiness 
since 2007. I don't see how we can keep at the current tempo of 
operations. I'm concerned we will not reach the expected ship service 
lives planned for in our shipbuilding plan. I can't tell you for sure 
if we're at a tipping point. However, we're on the edge.'' What, in 
your view, has caused this dramatic increase in inspection failures?
    Admiral Greenert. The singular and significant indicator of reduced 
material readiness has been higher failure rates for surface ships 
during inspections by the Navy Board of Inspection and Survey. Recent 
readiness reports by the Fleet indicate that this trend is turning. 
However, we will remain vigilant and proactive. We conducted a review 
of surface force readiness, which identified a number of root causes. 
These include reduced surface ship and intermediate maintenance center 
manning and the disestablishment (by BRAC 1995) of the surface ship 
life cycle engineering organization. These changes stopped updates to 
ship Class Maintenance Plans (CMP); eliminated the technical support to 
plan maintenance periods, and reduced the ability of crews to complete 
required maintenance.
    In response, we put executive-level oversight in place and 
initiated a multi-prong plan to improve surface ship readiness. This 
plan includes increasing surface ship manning (in progress) and 
restoring organizations to plan and manage ship lifecycle maintenance, 
including technical support for planning and conducting maintenance 
periods. We also significantly increased the fiscal year 2011 and 
fiscal year 2012 baseline ship maintenance budget submissions (compared 
to fiscal year 2010). Today, Navy's maintenance account is fully 
funded.
    While our ability to plan and conduct maintenance is much more 
comprehensive, an additional factor affecting surface ship readiness is 
the high operational tempo of the last 10 years. Since 2001, underway 
days per ship increased by 15 percent while Fleet size decreased by 10 
percent. This reduces the time a ship is available in port to conduct 
maintenance--even if it is pre-planned and fully funded. The Navy is 
investigating options to improve the balance between presence and pre-
deployment training and maintenance requirements, in order to achieve a 
sustainable level of operations that is consistent with the size of the 
fleet.

    10. Senator McCain. Admiral Greenert, how do you intend to fix it?
    Admiral Greenert. Numerous initiatives are currently underway to 
reverse the identified negative trends in Surface Force readiness, and 
to ensure our ships achieve their Expected Service Life (ESL). Most 
importantly, Navy has established:

        <bullet> A surface ship life cycle manager--Naval Sea Systems 
        Command (NAVSEA), Deputy Commander for Surface Warfare (SEA 
        21);
        <bullet> A Regional Maintenance Center (RMC) Command for 
        waterfront maintenance oversight--Commander, Navy Regional 
        Maintenance Center (CNRMC); and
        <bullet> A surface ship life cycle engineering agent--Surface 
        Maintenance Engineering Planning Program (SURFMEPP).

    With the establishment of SEA 21 and CNRMC, the Surface Force now 
has organizations in place to manage fleet maintenance and 
modernization. CNRMC leads the development and execution of 
standardized processes, policies, and training at the RMCs, and is 
improving the management of multi-ship/multi-option private industry 
maintenance contracts. Under NAVSEA's guidance, the maintenance 
philosophy for surface ships now parallels the engineering and life 
cycle processes currently in place for carriers and submarines, which 
traditionally meet or exceed their design service life.
    SURFMEPP reports directly to SEA 21, and will re-establish the 
engineered requirements and CMPs necessary for surface ships to reach 
their ESL. Additionally, they are creating life cycle maintenance plans 
for each ship, based on the CMP and actual ship condition. As a result, 
the Navy now has a better understanding of the impacts from, and the 
ability to accurately track, deferred maintenance that must be 
accomplished in the future.
    The Navy is incorporating best practices into how we evaluate and 
improve material condition. We partnered with the American Bureau of 
Shipping (ABS) to help assess the material condition of our surface 
ships. We established the Surface Warfare Enterprise Assessment 
Program, supported by technical experts from the RMCs, to conduct ship 
material condition assessments, and are focusing on development and 
demonstration of new corrosion control technology, materials, and 
processes. Corrosion control assistance teams have also been 
established in each Fleet concentration area.
    The Navy increased surface ship manning by 1,105 sailors in the 
fiscal year 2012 budget submission, and is increasing military and 
civilian manning at RMCs as well. With increased RMC manning, we are 
reestablishing some intermediate maintenance capabilities and expanding 
intermediate maintenance capacity. This also increases shore-duty 
opportunities for Fleet Sailors, who can then return to sea with 
journeyman-level maintenance skills.
    Since fiscal year 2010, the Navy added significant resources to 
annual ship maintenance budgets, specifically targeted at surface ship 
maintenance. While fiscal challenges in fiscal year 2012 have required 
that some risk be taken in ship depot maintenance, we will work to 
minimize the impacts and continue the gains made in surface ship 
readiness over the last several budget cycles.
    I intend to continue to support these programs and expect that, as 
they mature, Fleet material readiness will improve. I anticipate it 
will take a long-term deliberate effort to deliver consistent tangible 
improvements. The first depot maintenance availabilities planned under 
SURFMEPP are scheduled to occur in fiscal year 2012. I expect ships to 
meet Fleet standards and we will continue to closely monitor the 
Fleet's progress. I am confident that the improvements we are making, 
based on proven Navy and industry practices, are on the right course.

        navy's submarine programs--ohio-class and virginia-class
    11. Senator McCain. Admiral Greenert, I note in the answers to your 
advance policy questions you cite $5.6 billion for the first two hulls 
with a goal to reach $4.9 billion. The Ohio-class replacement SSGNs are 
expected to run about $6 billion each and the Virginia-class submarines 
cost about $2 billion each, under the current multi-year procurement 
plan. With more than half of the construction and development cost 
dollars being needed to build extraordinarily expensive nuclear 
submarines, I'm concerned that our commitment to submarines may be 
crowding out funding needed to modernize the surface fleet. Given a 
$400 billion target for reductions in the DOD budget, and potentially 
up to a trillion dollar cut, can we afford new submarines that cost 
that much money?
    Admiral Greenert. Although a significant capital investment, 
submarines are extraordinarily important to our Nation's security. 
Attack submarines (SSN) are uniquely capable and possess access-denial 
capabilities to gather intelligence or perform multiple combat 
missions--creating considerable strategic uncertainty for an adversary. 
Ballistic missile submarines (SSBN) are the most survivable leg of our 
Nation's nuclear deterrent triad.
    While we have reduced the cost of the Ohio Replacement SSBN 
substantially, our total shipbuilding budget will be pressurized in the 
2020s as we seek to recapitalize our surface and submarine forces while 
sustaining warfighting readiness and supporting our people. To 
accommodate SSBN recapitalization we are considering reducing (in the 
30-year Shipbuilding Plan) SSN procurement to one per year (from the 
current two) in the mid-2020s while maintaining the same approximate 
build rate for surface combatants. In that same timeframe however, many 
of our existing cruisers, destroyers, and SSNs will reach the end of 
their service lives. As a result, the number of surface combatants and 
SSNs may go below our current goal in the mid-2020s; while amphibious 
ships will remain above their goal until the 2030s.
    I am confident our near-term force structure plans provide the 
capability and capacity we need to meet demands today, but within this 
decade we must determine how to best resource the shipbuilding programs 
required in the 2020s. The Navy will continue to consider mitigation 
strategies for these anticipated changes.

    12. Senator McCain. Admiral Greenert, how does the Navy intend to 
ensure that overall surface ship production does not substantially 
decrease while it's building submarines?
    Admiral Greenert. The Navy remains committed to sustaining the 
force structure required to implement the Maritime Strategy. Our 
current shipbuilding plan continues to grow the fleet within available 
resources over the next decade.
    In the 2020s, several factors will challenge our ability to sustain 
the fleet capacity needed to meet today's level of operational demand. 
Ohio-class ballistic missile submarines (SSBN) must be recapitalized in 
that timeframe to sustain the most survivable leg of the nuclear triad 
while many of today's attack submarines (SSN) and large surface 
combatants will reach their end of service life and be decommissioned. 
During the years in which the new SSBN is being procured, construction 
of other ship types will be reduced, impacting our force size and the 
shipbuilding industrial base.
    To reduce costs and minimize the impact on other ship construction, 
the Ohio Replacement Program has been thoroughly reviewed. All aspects 
of the program (warfighting requirements, program execution, design, 
and construction efforts) were aggressively challenged to drive down 
non-recurring engineering and construction costs while still meeting 
the core military requirements for a survivable nuclear deterrent. In 
all shipbuilding programs, the Navy continually strives to reduce 
costs, specifically through designs that reduce total ownership and 
acquisition costs, establishment of reasonable operational and 
maintenance requirements, and prudent planning for future disposal.
    While the threats, demands, and mission requirements for mid to 
late 2020s are not well understood, we will continue to consider 
mitigation strategies for the anticipated shortfalls in fleet capacity. 
The Navy is planning to manage the service lives and modernization of 
existing ships during this period to minimize block obsolescence. As 
requirements, available resources, and the industrial landscape come 
into better focus, the Navy will procure the most appropriate mix of 
ships to address the anticipated mission needs of combatant commanders.

                       navy shipbuilding strategy
    13. Senator McCain. Admiral Greenert, last year the Navy submitted 
to Congress its 30-year shipbuilding plan, calling for a 313-ship 
battle force inventory as its baseline. However, building the required 
force structure will largely depend on controlling shipbuilding costs 
(including related combat systems) within an affordable range. Will the 
Navy be able to maintain stability in requirements, funding, and 
profiles in an effort to control costs?
    Admiral Greenert. The Navy remains committed to sustaining the 
force structure required to implement the Maritime Strategy. By 
identifying efficiencies within Navy's portfolio, the fiscal year 2012 
President's budget added five ships from fiscal year 2012 to fiscal 
year 2016 to provide more stability and sustainability to the 
industrial base and better maintain fleet capacity. Our combined 
efforts with Congress and industry to stabilize production of ships 
such as the Burke-class destroyer and Virginia-class submarine have 
paid off in lower per-unit costs and more rapid production.
    In the 2020s, however, the cost of replacing the Ohio-class 
ballistic missile submarine (SSBN) will impact other elements of the 
Navy's shipbuilding plan. Recapitalizing this most survivable leg of 
the nuclear deterrent triad will occur at the same time many of today's 
cruisers, destroyers and attack submarines will be retiring. As a 
result, the number of large surface combatants and SSNs may decrease 
below our current goal in the mid-2020s. This would challenge the 
Navy's ability to maintain today's level of operations--if that level 
is required in the future.
    To maximize our ability to recapitalize the fleet during SSBN 
procurement, the Navy will carefully manage the cost of future 
platforms. We will balance the operational and technical requirements 
of future platforms against their cost before they are contracted. We 
will continuously evaluate force structure requirements over the next 
decade to determine how the force should evolve in the 2020s while 
staying within available resources. We will continue to rely on proven 
designs and technology as much as possible to reduce technical risk and 
cost risk associated with new platforms.
    The Navy is committed to maintaining stability in requirements, 
funding and profiles in an effort to control costs. This will require 
the combined efforts of and collaboration between the Navy, Congress, 
the shipbuilding industry and the combat systems industry.

    14. Senator McCain. Admiral Greenert, controlling shipbuilding 
costs will require the combined efforts of the Navy, the shipbuilding 
industry, and the combat systems industry. What is the Navy doing to 
encourage fixed price contracts and ensuring that requirements are 
approved by the leadership will not change? Please give some discrete 
examples by program type.
    Admiral Greenert. The Navy addresses the acquisition strategy for 
new shipbuilding programs early in the acquisition process as part of 
the Material Development Decision and prior to initiation of the 
Analysis of Alternatives. The strategy includes a planned contract type 
based on a consideration of the risk associated with the program. To 
reduce costs in general, the Navy shipbuilding strategy leverages 
existing production designs. Because this also reduces risk, fixed 
price type contracts are more easily negotiated. If technical risk is 
considered high because of new program elements, we look for ways to 
invest in prototyping during technology development to mitigate the 
risk and achieve fixed price type contract terms prior to detail design 
and construction. Currently, all shipbuilding contracts are fixed-
price, except for the CVN-78 aircraft carrier and DDG-1000 since both 
are lead ships.
    The Navy continues to refine its Two-Pass/Six-Gate Review process 
to ensure requirements are set early and balanced against cost, and 
that this balance is visible and managed throughout the acquisition 
process. The Navy has also strengthened acquisition policy to improve 
program oversight, control cost growth, and more effectively monitor 
contractor performance.
    For example, prior to Milestone A approval for the Ohio Replacement 
submarine, the Department evaluated numerous capability trades to 
reduce costs. As a result, the Navy (OPNAV and Secretariat staffs) made 
trades in the number of ballistic missile tubes, the diameter of those 
tubes, the number of torpedoes to be carried, acoustic sensors, and 
other defensive features throughout the design. These trades made the 
submarine more affordable while maintaining the necessary level of 
capability, resulting in a reduction of the projected cost to an 
objective cost of $4.9 billion (fiscal year 2010 $) for hulls 2-12.

                                ddg-1000
    15. Senator McCain. Admiral Greenert, 13 years ago, the Navy began 
what we now call the DDG-1000 program and over that time taxpayers have 
invested over $10 billion. For that investment in time and money, we 
have to show one partially completed ship and no additional combat 
capability. At last report, the Navy and the builder of the DDG-1000 
class were at loggerheads over contract negotiations for the last two 
DDG-1000 ships. What is the status of this program and why shouldn't it 
be killed and the savings transferred to other shipbuilding programs, 
like the DDG-51 series ships that will have BMD capability that we have 
a growing need for?
    Admiral Greenert. Work on DDG-1000 and DDG-1001 at Bath Iron Works 
(BIW) is progressing well. DDG-1000 is over 50-percent complete and 
scheduled to deliver in fiscal year 2014 with an initial operating 
capability in fiscal year 2016. The second ship (DDG-1001) is more than 
20-percent complete.
    After careful and deliberate negotiations, Navy and General 
Dynamics BIW reached an agreement for pricing, terms, and conditions 
for construction of DDG-1001 and -1002. Details of the ship 
construction contract awards are expected to be finalized by the end of 
September. This agreement includes transitioning the partial 
construction contract for DDG-1001 into a full ship construction 
contract. The agreement also includes construction for DDG-1002. Both 
ships will be procured using fixed-price type contracts.
    DDG-1000 Zumwalt-class guided missile destroyers will be an 
optimally crewed, multi-mission surface combatant designed to provide 
long-range, precision naval surface fire support for ground forces and 
Marines conducting littoral maneuver and subsequent operations ashore. 
DDG-1000 features two 155mm Advanced Gun Systems (AGS) capable of 
engaging targets with the Long-Range Land Attack Projectile at a range 
of more than 63 nautical miles. In addition to providing vital precise 
and volume fires in support of ground forces and Marines, DDG-1000 will 
field advanced technologies such as signature reduction, active and 
passive self-defense systems, and enhanced survivability features that 
will, when appropriate, be incorporated into future ship designs.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                        challenges in east asia
    16. Senator Wicker. Admiral Greenert, please provide your 
assessment of our emerging security challenges in Asia.
    Admiral Greenert. I think you can divide our emerging security 
challenges in Asia into two broad categories: traditional and non-
traditional.
    Addressing traditional challenges first, one of the most pressing 
concerns is stability on the Korean peninsula, especially in light of 
North Korea's impending leadership transition and continued economic 
decline. Shortages of fuel, food, and capital in North Korea could hit 
a ``tipping point'' in the near term that prompts large flows of 
refugees into South Korea or China. As last year's sinking of a South 
Korean naval ship and artillery strikes on a South Korean island 
demonstrate, North Korea's leaders remain unpredictable in the face of 
these challenges. We also continue to be concerned about North Korea's 
nuclear weapons, their developing ballistic missile capabilities, and 
their role in proliferating advanced weapons and associated technology 
abroad.
    The biggest issue worthy of vigilance in the region is China's 
emergence as a major power economically, politically and militarily. In 
my view, the PRC is still in the process of defining its role in the 
world. One key factor in this process is how the PRC leadership 
perceives the future U.S. role in the region. The U.S. Navy is 
important to reassuring regional allies and partners. But the Navy can 
also demonstrate to the PRC the benefits of international security 
cooperation in areas such as counterpiracy, disaster relief and non-
proliferation.
    Beyond the Taiwan situation, there is increasing concern in East 
Asia about China's increasing assertiveness regarding maritime claims 
in the East China Sea and South China Sea. In both areas, U.S. naval 
presence plays an important role in reassuring our allies and ensuring 
that these disputes are settled peacefully, and that the fundamental 
rights of freedom of navigation and the flow of international trade are 
respected.
    Among nontraditional security challenges, two of the biggest long-
term concerns are demographic trends and the potential effects of 
climate change. These will significantly influence the future foreign 
policy decisions of countries throughout Asia, and in some cases will 
challenge their internal stability.

    17. Senator Wicker. Admiral Greenert, do such challenges require 
the United States to maintain adequate maritime and air assets in 
theater for the indefinite future?
    Admiral Greenert. Yes. As articulated in the Maritime Strategy, the 
Navy remains committed to advancing our national interests in the 
Western Pacific. Strong, consistent U.S. military presence is a 
critical symbol of U.S. commitment to the region, and a key ingredient 
of continued peace and stability there.
    Toward this end, we will remain vigilant, and evaluate and adapt 
our posture in the Western Pacific, including rotational deployments, 
forward stationing, and episodic operations with allies and partners. 
We also explore opportunities for more forward presence in the region 
that supports increased multilateral cooperation on maritime security 
and enhances our capabilities for assured Joint access to the sea, air, 
space, and cyberspace.

    18. Senator Wicker. Admiral Greenert, as the United States faces 
growing challenges in East Asia and the need for budget austerity at 
home, what future role do you see amphibious ships and aircraft 
carriers playing in our force projection abroad?
    Admiral Greenert. Forward-stationed and rotationally deployed 
amphibious ready groups and carrier strike groups are essential to the 
U.S. Navy's ability to dissuade, deter and (if necessary) project power 
abroad. The synergistic application of the capabilities within these 
forces, while forward in the region, projects U.S. influence, responds 
to crises, and sustains key international relationships. Naval forces' 
posture--and inherent speed of response--show our commitment to the 
East Asia region, our partners and allies, and protect our vital 
national interests.

    19. Senator Wicker. Admiral Greenert, this committee has long been 
interested in ensuring Taiwan's ability to defend itself. In your 
opinion, do continued arms sales and technical support to Taiwan's 
military lend to continued stability in the region?
    Admiral Greenert. Consistent with the provisions in the Taiwan 
Relations Act, the United States makes available to Taiwan defense 
articles and services in such quantity as may be necessary and 
appropriate. The United States Taiwan policy is based on our one China 
Policy, the three joint U.S.-China Communiques, and the Taiwan 
Relations Act and reflects longstanding U.S. policy towards Taiwan.

                     navy battle force requirements
    20. Senator Wicker. Admiral Greenert, I believe investments in 
shipbuilding must be directed where necessary to ensure that the Navy's 
battle force remains equal to the challenges of today as well as those 
it may face in the future. Our shipbuilding program must represent a 
balance between the expected demands upon the naval fleet for presence, 
partnership building, humanitarian assistance, disaster relief, 
deterrence, and warfighting, as well as available future resources.
    With more than half of the construction and development cost 
dollars being needed to build extraordinarily expensive nuclear 
submarines, there is concern that our commitment to submarines may be 
crowding out funding needed to carry out ship modernization and 
construction of aircraft carriers as well as amphibious ships. This 
concern is exacerbated as the Navy faces an increasingly austere budget 
environment.
    I am concerned the financial resources may not exist in the coming 
years to maintain the long-time stated requirement of a 313-ship fleet. 
As such, how will the Navy ensure proper balance in our shipbuilding 
programs to ensure our combatant commanders have the ability to 
maintain security in their respective regions?
    Admiral Greenert. The Navy remains committed to sustaining the 
force structure required to implement the Maritime Strategy. Our 
current shipbuilding plan balances the projected demands for naval 
forces from combatant commanders against expected future resources, 
taking into account the importance of maintaining an adequate national 
shipbuilding industrial base. The plan strives to be realistic about 
the costs of future ships. It is also part of an overall budget 
submission that balances risk against available resources across the 
entire Navy portfolio.
    Today's fleet is unable to meet the unrestrained combatant 
commander demand for naval forces. Our current shipbuilding plan grows 
the fleet within projected resources over the next decade. While the 
Navy will continue to provide the best capability and capacity it can, 
combatant commanders will also have to explore innovative and 
alternative solutions to address the security challenges in their 
regions. We will collaborate with them in their endeavor.
    In the 2020s, several factors will challenge our ability to sustain 
the fleet capacity needed to meet today's level of operational demand. 
Ohio-class ballistic missile submarines (SSBN) must be recapitalized in 
that timeframe to sustain the most survivable leg of the nuclear triad 
while many of today's attack submarines (SSN) and large surface 
combatants will reach their end of service life and be decommissioned. 
During the years in which the new SSBN is being procured, construction 
of other ship types may be reduced, impacting our force size and the 
shipbuilding industrial base.
    To reduce costs and minimize the impact on other ship construction, 
the Ohio Replacement Program has been thoroughly reviewed. All aspects 
of the program (warfighting requirements, program execution, design, 
and construction efforts) were aggressively challenged to drive down 
non-recurring engineering and construction costs while still meeting 
the core military requirements for a survivable nuclear deterrent. In 
all shipbuilding programs, the Navy continually strives to reduce 
costs, specifically through designs that reduce total ownership and 
acquisition costs, establishment of reasonable operational and 
maintenance requirements, and prudent planning for future disposal.
    While the specific threats, demands, and mission requirements for 
mid- to late-2020s are not fully understood, we will continue to 
consider mitigation strategies for the anticipated shortfalls in fleet 
capacity. The Navy is planning to manage the service lives and 
modernization of existing ships during this period to minimize block 
obsolescence. As requirements, available resources, and the industrial 
landscape come into better focus, the Navy will procure the most 
appropriate mix of ships to address the anticipated mission needs of 
combatant commanders. The Department of Defense will also continue 
employing a comprehensive Global Force Management (GFM) process to most 
effectively allocate naval forces to the highest priority combatant 
commander requirements, and if necessary, re-task assets from other 
missions to support crisis response.

    21. Senator Wicker. Admiral Greenert, please give your view on the 
impact of submarine construction costs on surface-ship building, 
including amphibious ships, and how it may impact the shipbuilding 
industrial base.
    Admiral Greenert. Between 2011 and 2021, submarine construction 
should not impact our ability to sustain the surface fleet. According 
to our projected ship inventory, the number of large surface combatants 
will grow to 97, small surface combatants will return to today's levels 
after the retirement of the Perry-class frigates, and the amphibious 
fleet will reach our goal of 33 ship.
    Recapitalization of the Nation's sea-based strategic deterrent 
within the Navy shipbuilding account over a 15 year period (fiscal year 
2019-fiscal year 2033) creates significant challenges to Navy 
shipbuilding goals. While we have reduced the projected cost of the 
Ohio Replacement substantially, our total shipbuilding budget will be 
pressurized in the 2020s as we seek to recapitalize our surface and 
submarine forces while sustaining warfighting readiness and supporting 
our people. Pending funding relief from outside the Navy, to 
accommodate SSBN recapitalization we would plan to reduce our build 
rate for destroyers and cut our SSN procurement to one per year (from 
the current two) in the mid-2020s. In that same timeframe however, many 
of our existing cruisers, destroyers, and SSN may reach the end of 
their service lives. As a result, the number of destroyers and SSNs 
will go below our current goal in the mid-2020s, while amphibious ships 
will remain above their goal until the 2030s.
    While the threats, demands, and mission requirements for mid to 
late 2020s are unpredictable to some extent, we will continue to 
consider mitigation strategies for the anticipated shortfalls in fleet 
capacity. The Navy is planning to manage the service lives and 
modernization of existing ships during this period to minimize block 
obsolescence. As requirements, available resources, and the industrial 
landscape come into better focus, the Navy will procure the most 
appropriate mix of ships to address the anticipated mission needs of 
combatant commanders.
    It is difficult to predict the impact to the shipbuilding 
industrial base with any precision during the period the Ohio 
Replacement will be procured. The Navy remains committed to sustaining 
the force structure required to implement the Maritime Strategy and to 
work with industry to maintain a viable shipbuilding industrial base, 
since it is the key to our future adaptability.
                                 ______
                                 
               Questions Submitted by Senator Rob Portman
                            unmanned systems
    22. Senator Portman. Admiral Greenert, the Navy's unmanned systems 
master plan was released in 2004 and most recently updated in 2007. 
What are your intentions to update this plan and what priority will you 
accord planning, development, and acquisition of unmanned systems?
    Admiral Greenert. The Navy updated and integrated the 2004 and 2007 
unmanned system plans earlier this year. The 2004 Unmanned Undersea 
Vehicle Master Plan and the 2007 Unmanned Surface Vehicle Master Plan 
laid out a vision for development and employment of unmanned systems in 
the undersea and sea surface domains, respectively. Those documents 
were developed by the undersea and surface warfare communities, 
respectively, supported by their technical communities and fleet 
counterparts.
    With the establishment of Navy's Information Dominance Corps in 
2010, the Deputy Chief of Naval Operations for Information Dominance 
(N2N6) assumed responsibility for unmanned systems across all domains--
over, on and under the sea. This alignment is consistent with a 
significant purpose of these systems to collect and transmit 
information to support the warfighter. In January 2011, N2N6 developed 
a single roadmap for unmanned systems that updates and integrates the 
preceding domain-specific documents as ``The U.S. Navy's Information 
Dominance Roadmap for Unmanned Systems.''
    This updated roadmap describes how unmanned systems will add 
significant capabilities to the Navy's Information Dominance systems 
and platforms and act as a force multiplier for long-endurance, 
hazardous or high-threat missions where humans are limited in achieving 
mission success. The roadmap also identifies where unmanned systems can 
provide a viable alternative to ``traditionally'' manned missions. It 
focuses on the years 2011-2020 and guides development, production, and 
fielding of unmanned systems and associated support systems into the 
fleet. I intend to continue placing priority on the planning, 
development and acquisition of unmanned systems as guided by this 
roadmap.

    23. Senator Portman. Admiral Greenert, what are your thoughts and 
plans for how to evolve Navy personnel and related programs to support 
the unmanned systems technology?
    Admiral Greenert. Navy currently operates the majority of its 
unmanned systems as adjuncts to manned warfare systems. For example, 
the helicopter community employs the Firescout vertical takeoff and 
landing unmanned aerial vehicle (UAV) and the maritime patrol community 
operates the Broad Area Maritime Surveillance UAV. This approach 
maintains the focus of unmanned systems and their operators on needed 
missions, capitalizes on commonalities between manned and unmanned 
systems, and leverages the knowledge and experience of personnel in 
existing warfare communities. We will expeditiously move from 
``adjacent'' to full integration.
    Training for unmanned systems is planned to be modular, and will 
leverage best-practices developed to support similar manned systems. 
Modular training for Navy unmanned aircraft systems (UAS) will allow 
standardization in common subject areas between systems with the 
flexibility to address specific mission requirements for each UAS. This 
approach to training allows aviation and non-aviation personnel to 
attend only those training courses required to attain the necessary 
skill sets to operate a specific UAS.
    Navy is currently working with other services to develop joint 
operational and training concepts using unmanned systems, and to 
determine if commonalities between systems will create greater 
capabilities and increased efficiencies.
    As unmanned systems technologies mature and inventories increase, 
Navy will re-evaluate the need for a separate unmanned systems 
community. As each new unmanned system is developed and integrated 
within the fleet, Navy manpower and personnel officials will ensure 
proper community management and career development for personnel 
involved in these systems. The Navy will also continue to assess new 
missions and evolving technologies to determine whether new or 
additional training, education, or experience will be needed to provide 
the required skills and expertise to maximize our return on investment 
in unmanned systems.

    24. Senator Portman. Admiral Greenert, recently, Admiral Roughead 
made comments to the effect that unmanned systems might be able to 
reduce the needs for manned forces, specifically unmanned undersea 
vehicles (UUV) in place of manned nuclear submarines. Do you see UUVs 
as an eventual replacement for manned nuclear submarines or in 
particular, manned nuclear submarine missions?
    Admiral Greenert. UUVs are not specific replacements for manned 
nuclear submarines (SSN/SSGN). It is unlikely they will have the 
autonomy, range or endurance to conduct the range of current manned 
submarine missions for the foreseeable future. UUVs will complement 
submarines by expanding their reach or conducting specific missions for 
which UUVs are particularly well-suited. Especially in the littoral 
environment, UUVs have significant advantages in cost, size, and 
ability to conduct higher risk operations compared to manned 
submarines. This will allow UUVs to take on new missions we would not 
or could not do with a manned platform. UUVs can also take on some 
current undersea tasks, freeing manned submarines for other critical 
missions.
    Over the past decade, unmanned systems have evolved from unique, 
stand-alone systems to an integrated part of our warfighting 
capability. The introduction of UAVs into the fleet has been a great 
success and I believe that we can duplicate this success with UUVs. I 
share Admiral Roughead's concern regarding UUV endurance and autonomy. 
These hurdles are being addressed and I believe that UUVs will 
eventually serve as a force multiplier and complement to our manned 
nuclear submarine force, as well as service in other peacetime and 
warfighting requirements.
    There is a very high demand for our manned submarine force in a 
variety of mission areas and theaters. This sustained demand in the 
face of decreasing submarine force structure will result in a submarine 
capacity gap. UUVs can be used to mitigate this capacity gap in some 
cases by performing important missions that may be allocated to a 
mission-focused UUV, rather than a multi-mission manned submarine. By 
combining UUVs and manned submarines as part of an overall undersea 
network, missions can be performed across a much larger area and for 
extended periods of time at a significantly reduced cost.

                           budget constraints
    25. Senator Portman. Admiral Greenert, given the budget pressure on 
the Navy, what is your position on using multiyear service contracts 
for underway combat logistics force services?
    Admiral Greenert. We are examining multi-year ``fee-for-service'' 
contracts in the T-AO(X) Analysis of Alternatives (AoA). We have asked 
OMB for an opinion how such a construct should be scored, since 
previous long-term operating lease/service contracts have been scored 
as capital, vice operating leases, and would not necessarily be cost-
effective compared to direct acquisition.

    26. Senator Portman. Admiral Greenert, is this approach being 
considered in the analysis of alternatives for the T-AO(X) program?
    Admiral Greenert. Yes. The Fleet Replenishment Oiler Analysis of 
Alternatives Scope and Tasking Directive lists a variety of financing 
including, ``consider various leasing options for a commercial tanker 
modified to provide refueling at sea, to include a fee-for-service cost 
option.''

                      all-electric ship initiative
    27. Senator Portman. Admiral Greenert, what is your assessment of 
the progress being made with the All-Electric Ship Initiative?
    Admiral Greenert. The Navy is beginning to realize the benefits of 
all-electric ship technologies. The flexibility of transmitting 
electricity around the ship instead of fuel or steam allows power 
generating and conversion modules to be installed and connected to 
propulsion or combat systems in the arrangement that best supports the 
ship's mission at the lowest total ownership cost. We are currently 
fielding several new all-electric technologies such as hybrid electric 
drives, advanced energy storage modules, and Integrated Power Systems 
(IPS) to meet increasing electrical power demands, enhance operational 
flexibility, and reduce fuel requirements. The Navy is also pursuing an 
open architecture approach for the next generation IPS, including 
electric propulsion, power conversion, generation, storage and 
distribution components, to obtain simpler, more affordable and more 
capable shipboard systems.
    The Navy has begun adoption of the all-electric or IPS 
architecture. The Lewis and Clark-class (T-AKE) dry cargo ships are 
powered by a commercial IPS, realizing reduced acquisition and life 
cycle costs. USS Zumwalt (DDG-1000), now under construction, will be 
the first fully militarized IPS ship, providing 78 megawatts of 
installed power for propulsion and ship service in a single, unified 
electrical system. USS Makin Island (LHD-8) is the first amphibious 
ship built with gas turbine engines and hybrid electric drive. This 
system has demonstrated significant fuel savings as compared with steam 
driven LHDs. The Navy will be demonstrating both hybrid electric drive 
and energy storage module prototypes on DDG-51 class ships in 2012 as 
part of the Green Strike Group. Acquisition of both of these energy 
saving technologies for backfit into existing ships is beginning with 
production systems expected in the Fleet by 2016.

    28. Senator Portman. Admiral Greenert, do you assess that 
development and testing for the electrification of submarine actuation 
is progressing to meet program goals?
    Admiral Greenert. Yes I do. Although the migration to the ``all-
electric'' submarine has been slowed by funding constraints and 
schedule imposed by delivery dates, significant progress is being made 
toward achieving this goal.
    In support of exploiting the benefits of electric actuation, 
several families of reliable electric actuation components, which will 
replace their hydraulic counterparts, are being installed this year on 
a Virginia-class submarine for evaluation purposes. These components 
will be cycled through realistic operational scenarios to the same 
degree that their hydraulic counterparts are typically cycled during a 
deployment. Additionally, a retractable bow plane electrically actuated 
control surface system is under development for Virginia-class.
    The Virginia-class and Ohio-replacement submarine programs are 
already leveraging these electric actuation development efforts. 
Additionally, a common, open architecture, multiplexing controller for 
these electric actuators is under development to facilitate lower 
acquisition and life cycle costs. Final implementation of these 
electric actuators and the common controller on Virginia-class and Ohio 
replacement will continue to undergo evaluation as analysis is 
conducted and specifics of the detailed design process for each 
platform are developed.
    In addition, a Project Arrangement between the United States and 
United Kingdom is under development to perform land based comparative 
performance testing of both countries' submarine control surface 
electric actuation systems. This Project Arrangement will include 
sharing of test data and insight into alternative electric actuation 
prototypes.
                                 ______
                                 
               Question Submitted by Senator Kelly Ayotte
                         budgetary constraints
    29. Senator Ayotte. Admiral Greenert, in your response to the 
advance policy questions, you state: ``The Nation cannot have a strong 
defense without a strong economy; therefore I view the deficit crisis 
and corresponding deep cuts in defense as one of the most significant 
challenges to the entire national security community.'' Do you agree 
with Chairman Mullen that, ``The most significant threat to our 
national security is our debt?'' Please explain your answer.
    Admiral Greenert. Over the long-term, history shows that a nation's 
economic strength is the foundation of its national security. This has 
been true of the United States, as evidenced by our success in two 
World Wars and the Cold War. If our national debt grows to the point 
where it begins to tangibly and significantly erode our overall 
economic position, I think it could become a detriment to our national 
security. But, I believe this effect would take time to manifest 
itself. Our current economic challenge is a result of many interrelated 
factors, of which the debt is one element.
    My concern today is balancing the need to reduce our current 
deficits while minimizing the possibility our national debt will rise 
to a damaging level. We need to do our part. That means we have to 
deliver whole and effective warfighting capability and capacity in the 
most affordable manner possible. Achieving this is one of our most 
significant challenges.
                                 ______
                                 
    [The nomination reference of ADM Jonathan W. Greenert, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 22, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Naval 
Operations, U.S. Navy, and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 601 and 5033:

                             To be Admiral

    ADM Jonathan W. Greenert, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Jonathan W. Greenert, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Biographical Sketch of ADM Jonathan William Greenert, USN




  15 May 1953.............................  Born in Butler, PA
  30 June 1971............................  Midshipman, U.S. Naval
                                             Academy
  04 June 1975............................  Ensign
  04 June 1977............................  Lieutenant (junior grade)
  01 July 1979............................  Lieutenant
  01 Oct, 1983............................  Lieutenant Commander
  01 Sep. 1988............................  Commander
  01 Oct. 1994............................  Captain
  25 Sep. 1998............................  Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
  01 Oct. 1999............................  Rear Admiral (lower half)
  Nov. 2001...............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
  01 Nov. 2002............................  Rear Admiral
  01 Oct. 2004............................  Vice Admiral
  28 Sep. 2007............................  Admiral, Service continuous
                                             to date



Major duty assignments:

------------------------------------------------------------------------
            Assignments and duties                  From          To
------------------------------------------------------------------------
USS Flying Fish (SSN-673) (Electronics           June 1975    Mar. 1976
 Material Officer)............................
Naval Nuclear Power School, Naval Training       Apr. 1976    Sep. 1976
 Center, Orlando, FL (DUINS)..................
Naval Nuclear Power Training Unit, Windsor, CT   Sep. 1976    Apr. 1977
 (DUINS)......................................
Naval Submarine School, Groton, CT (DUINS)....   Apr. 1977    July 1977
USS Tautog (SSN-639) (Electrical Division        July 1977    Aug. 1980
 Officer).....................................
Commander, Submarine Force, U.S. Pacific Fleet   Aug. 1980    July 1982
 (Underwater Fire Control Systems Officer)....
Submarine (NR 1) (Engineer Officer)...........   July 1982    Oct. 1985
Naval Submarine School, Groton, CT (DUINS)....   Nov. 1985     May 1986
Trident Training Facility, Bangor, WA (DUINS).    May 1986    June 1986
XO, USS Michigan (SSBN-727)...................   June 1986     May 1988
Office of the CNO (Head, Submarine Programs       May 1988    June 1990
 Section) (OP-80).............................
Naval Reactors, Department of Energy (PCO        June 1990    Sep. 1990
 Course)......................................
Commander, Submarine Force, U.S. Pacific Fleet   Sep. 1990    Dec. 1990
 (PCO Training)...............................
CO, USS Honolulu (SSN-718)....................   Dec. 1990    July 1993
Strategic Studies Group Fellow, Newport, RI...   July 1993    June 1994
Office of the CNO (Head, Program Planning and    June 1994    June 1996
 Development Branch) (N801)...................
Commander, Submarine Squadron Eleven..........   June 1996    June 1997
Commander, Seventh Fleet (Chief of Staff).....   June 1997    Oct. 1998
U.S. Pacific Command Representative, Guam,       Oct. 1998    Jan. 2000
 Commonwealth of the Northern Mariana Islands,
 Federated States of Micronesia, Republic of
 Palau/Commander, Naval Base, Guam............
Office of the Assistant Secretary of the Navy    Jan. 2000    Aug. 2002
 for Financial Management and Comptroller
 (Director, Operations Division)/Office of the
 CNO (Director, Operations Division, Fiscal
 Management Division) (N821)..................
Commander, U.S. Pacific Fleet (Deputy and        Aug. 2002    Aug. 2004
 Chief of Staff)..............................
Commander, Seventh Fleet......................   Aug. 2004    Nov. 2006
Office of the CNO (Deputy Chief of Naval         Nov. 2006    Sep. 2007
 Operations for Integration of Capabilities
 and Resources) (N8)..........................
Commander, U.S. Fleet Forces Command..........   Sep. 2007    Aug. 2009
Vice Chief of Naval Operations................   Aug. 2009      To date
------------------------------------------------------------------------


Medals and awards:
    Distinguished Service Medal with two Gold Stars
    Defense Superior Service Medal
    Legion of Merit with three Gold Stars
    Meritorious Service Medal with one Gold Bronze Star
    Navy and Marine Corps Commendation Medal with three Gold Stars
    Navy and Marine Corps Achievement Medal with two Gold Stars
    Joint Meritorious Unit Award
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon with ``E'' Device
    Navy Expeditionary Medal with one Bronze Star
    National Defense Service Medal with one Bronze Star
    Global War on Terrorism Service Medal
    Armed Forces Service Medal
    Sea Service Deployment Ribbon with three Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon
    Coast Guard Special Operations Service Ribbon

Special qualifications:
    BS (Engineering) U.S. Naval Academy, 1975
    Designated Qualified in Submarines, 1978
    Capstone, 2000-4
    Designated Level IV Joint Qualified Officer, 2009

Personal data:
    Wife: Darleen E. Hodges of Kalamazoo, MI
    Children: Jonathan R. Greenert (Son), Born: 01 May 1983
    Brian L. Greenert (Son), Born: 21 January 1985
    Sarah E. Greenert (Daughter), Born: 12 November 1988

Summary of joint duty assignments:

------------------------------------------------------------------------
             Assignment                       Dates              Rank
------------------------------------------------------------------------
U.S. Pacific Command                 Oct. 98-Jan. 00.......        RDML
 Representative, Guam, Commonwealth
 of the Northern Mariana Islands,
 Federated States of Micronesia,
 Republic of Palau/Commander, Naval
 Base, Guam.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by ADM Jonathan 
W. Greenert, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jonathan W. Greenert.

    2. Position to which nominated:
    Chief of Naval Operations.

    3. Date of nomination:
    July 22, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    15 May 1953; Butler, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Darleen Elizabeth Greenert (Maiden Name: Hodges).

    7. Names and ages of children:
    Jonathan R. Greenert, age 28.
    Brian L. Greenert, age 26.
    Sarah E. Greenert, age 22.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Knights of Columbus
    U.S. Naval Academy Alumni Association
    U.S. Naval Institute
    U.S. Navy League
    U.S. Navy Memorial
    U.S. Naval Submarine League
    American Legion

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Distinguished graduate award, Butler Area Senior High School, 
Butler, PA, received: Jun 22, 2002.
    ``Who's Who in the East'' award, received: 2000/2001.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal view: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power.
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                           J.W. Greenert, ADM, USN.
    This 29th day of June, 2011.

    [The nomination of ADM Jonathan W. Greenert, USN, was 
reported to the Senate by Chairman Levin on August 2, 2011, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2011.]
                              ----------                              

    [Prepared questions submitted to LTG Charles H. Jacoby, 
Jr., USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. My first combat operation as an Army officer was to command 
a parachute rifle company in the U.S. intervention in Grenada in 1983. 
I witnessed first-hand the problems, deficiencies, and challenges we 
faced in conducting joint operations. A little over a year ago, I 
completed a tour as the Commanding General, Multi-National Corps-Iraq. 
This time, I witnessed first-hand the tremendous power, integration, 
and the unsurpassed adaptability and dominance of our joint force. I 
attribute the foundation of this remarkable transformation to be the 
Goldwater-Nichols Act of 1986.
    At this time, I do not see a need to modify the provisions of the 
Goldwater-Nichols Act. If confirmed, I will recommend changes to this 
landmark legislation, if needed.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable.
                       duties and qualifications
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Northern Command (NORTHCOM)?
    Answer. The Commander, NORTHCOM, is responsible for defending the 
people and territory of the United States against threats to our 
Homeland. The commander is also responsible for security cooperation 
with Canada, Mexico, and The Bahamas, as well as providing military 
support to Federal, State and local authorities in response to natural 
or manmade disasters. The Commander's newest responsibility is to 
advocate for Arctic capabilities as assigned in the 2011 Unified 
Command Plan (UCP).
    Question. What is your understanding of the duties and functions of 
the Commander, North American Aerospace Defense Command (NORAD)?
    Answer. The Commander of NORAD is responsible for aerospace 
warning, aerospace control, and maritime warning of North America. 
Reporting to both the President of the United States and the Canadian 
Prime Minister, the Commander of NORAD provides both governments 
tactical warning and attack assessment through an integrated aerospace 
threat picture.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. It is my privilege to have served over 33 years in a 
variety of positions from platoon leader to Commanding General, I Corp. 
In Afghanistan, Iraq, and Central America, I guided combined and joint 
task force headquarters comprised of soldiers, sailors, airmen, 
marines, and Department of Defense (DOD) civilians, as well as 
interagency and coalition partners. My current position as the Director 
for Strategic Plans and Policy on the Joint Staff has given me a clear 
understanding of joint, combined, and international operations; the 
role a combatant commander plays in theater security cooperation; the 
importance of interagency teamwork; and the interdependent role of all 
components of the Total Force--Active, Guard, and Reserves--in 
defending our Homeland and supporting civil authorities in times of 
crisis.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NORTHCOM, and Commander, NORAD?
    Answer. If confirmed, I will take advantage of every opportunity to 
build on my experience of homeland defense and civil support 
operations. I intend to deepen my understanding of the threat posed to 
the United States and our neighbors by transnational criminal 
organizations (TCO), as well as the whole-of-government approach to 
defeat them. Another near-term activity, if confirmed, will be to work 
closely with The Adjutants General, State Governors, and the leadership 
of key Federal agencies regarding the vital role of National Guard and 
Federal Reserve Forces in our Nation's response to natural and manmade 
disasters.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
NORTHCOM, to the following officials:
    The Secretary of Defense.
    Answer. The Commander of NORTHCOM executes his missions under the 
authority, direction, and control of the Secretary of Defense. He is 
directly responsible to him for the preparedness of his Command and its 
ability to carry out assigned missions. If confirmed, I will ensure 
NORTHCOM continues the close working relationship it currently has with 
the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Commander of NORTHCOM ensures the Deputy Secretary has 
the information and support he needs to perform duties as directed by 
the Secretary of Defense. The Commander of NORTHCOM also coordinates 
with the Deputy Secretary on major homeland defense and civil support 
activities.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Commander of NORTHCOM works closely with the Under 
Secretary of Defense for Policy in coordinating and exchanging 
information on strategic policy issues involving homeland defense, 
defense support of civil authorities, and security cooperation. In 
addition, the Commander interacts with the Under Secretary to support 
her duties as a key advocate for NORTHCOM requirements.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence is the 
Secretary's principal advisor on intelligence and counterintelligence 
matters. The Commander of NORTHCOM coordinates and exchanges 
information with the Under Secretary of Defense for Intelligence to 
obtain threat estimates and timely warning of worldwide threats to the 
NORTHCOM area of responsibility (AOR).
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Commander of NORTHCOM works closely with the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs on homeland defense, defense support of civil authorities, and 
security cooperation issues.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is not in the chain of command of the 
Commander of NORTHCOM to the President and the Secretary; however, 
title 10 does allow for communications from combatant commanders 
through the Chairman. This keeps the Chairman informed so that he can 
execute responsibilities as the principal military advisor to the 
President and Secretary of Defense. If confirmed, I will communicate 
closely with the Chairman to enable him to perform his duties.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the military departments are responsible 
for organizing, training, and equipping forces assigned to all the 
combatant commands. The Commander of NORTHCOM works closely with the 
Secretaries to ensure homeland defense, civil support, and security 
cooperation requirements are met. This interaction is particularly 
important to ensure the Reserve component is prepared to respond to 
domestic crises.
    Question. The Chiefs of Staff of the Services.
    Answer. The Commander of NORTHCOM exchanges information with the 
Chiefs of Staff of the Services to support their responsibility for 
organizing, training and equipping forces for homeland defense and 
civil support operations, as well as security cooperation activities. 
Additionally, the Commander of NORTHCOM communicates with the Chiefs on 
force protection matters within the command's AOR. Similar to the 
Chairman, the Service Chiefs are valuable sources of judgment and 
advice for combatant commanders.
    Question. The other combatant commanders, particularly U.S. 
Southern Command (SOUTHCOM).
    Answer. The Commander of NORTHCOM maintains close relationships 
with the other combatant commanders, particularly SOUTHCOM, U.S. 
Strategic Command, U.S. Transportation Command, U.S. Special Operations 
Command, and U.S. Pacific Command (PACOM). These relationships are 
characterized by mutual support, frequent contact, and productive 
exchanges of information on key issues. If confirmed, I will maintain 
open lines of communication with the other combatant commands to 
execute our National Military Strategy.
    Question. The Chief of the National Guard Bureau.
    Answer. National Guard forces are likely to be involved in almost 
all homeland defense and civil support missions. As such, close 
coordination between the Commander of NORTHCOM and the Chief of the 
National Guard Bureau is central to the success of these operations. If 
confirmed, I look forward to advancing this important relationship to 
strengthen our homeland defense and disaster response capabilities.
    Question. The State Governors and Adjutants General.
    Answer. State Governors and the Adjutants General play a critical 
role in NORTHCOM's homeland defense and defense support of civil 
authorities missions. If confirmed, I look forward to maintaining and 
developing strong relationships with these key partners, and especially 
sustaining the great teamwork and trusting relationships that Admiral 
Winnefeld has established.
    Question. If confirmed, in carrying out your duties, how would you 
work with the Department of Homeland Security (DHS), the Homeland 
Security Council, and other Federal agencies, as well as state and 
local authorities and representatives from the private sector?
    Answer. If confirmed, I will work operational issues with the DHS 
and other Federal agencies on a routine basis. If confirmed, I intend 
to communicate with local, State, and Federal agencies, as well as the 
private sector both personally and via the NORTHCOM Joint Interagency 
Coordination Group, to facilitate DOD assistance in accordance with the 
National Response Framework, and as directed by the President and the 
Secretary of Defense. I also look forward to having close working 
relationships with the senior leadership of each of these entities.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, NORTHCOM?
    Answer. I believe the biggest near-term challenge confronting the 
next Commander of NORTHCOM is the potential for an attack on our 
Homeland by violent extremists using asymmetric means or possibly 
weapons of mass destruction. Another immediate threat to our national 
security is the growing demand for illegal drugs in the United States, 
which is contributing to increasingly brutal and aggressive actions by 
TCOs in Mexico. In the longer term, the possibility of rogue nations 
acquiring nuclear weapons and the capability to use them against our 
Homeland may be a continuing challenge for the Commander of NORTHCOM.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will ensure NORTHCOM's plans and operations 
effectively address the full spectrum of threats to its AOR. In 
addition, if confirmed, I will strengthen the command's already robust 
exercise program, involving participants from DOD, the National Guard, 
and the interagency community, as well as State and local officials, to 
challenge and improve our Nation's capability to detect, deter, and 
defeat threats to our Homeland.
                    mission of u.s. northern command
    Question. What is the mission of NORTHCOM?
    Answer. NORTHCOM conducts homeland defense and civil support 
operations within its assigned AOR in order to defend and secure the 
United States and its interests. In addition, the command is 
responsible for executing theater security cooperation with Mexico, 
Canada, and The Bahamas, with full respect for their sovereignty. 
NORTHCOM also advocates for Arctic capabilities in accordance with the 
2011 UCP.
    Question. How does NORTHCOM's mission relate to the mission of the 
DHS?
    Answer. DHS is responsible for preventing terrorist attacks, as 
well as response and recovery from natural and manmade disasters. 
NORTHCOM is responsible for detecting, deterring, and preventing 
external threats to the United States, and when directed by the 
President or Secretary of Defense, providing defense support of civil 
authorities. NORTHCOM works closely with the DHS at all levels to plan, 
train for, and execute homeland defense and civil support missions and 
bring a whole-of-government approach to each operational challenge.
    Question. Are there circumstances under which you would anticipate 
NORTHCOM would have the lead Federal role in responding to a domestic 
terrorist incident? Or do you believe NORTHCOM would operate only in 
support of other Federal departments and agencies?
    Answer. In the event of an armed terrorist attack against the 
United States, the President may direct that DOD have the lead role in 
defending the United States. As the geographic combatant command 
responsible for the homeland, the Commander of NORTHCOM would likely be 
designated the supported commander for such an event. However, for most 
terrorist incidents within the United States, NORTHCOM will be in 
support of a primary agency, such as DHS, the Department of Justice, or 
the Federal Bureau of Investigation.
    Question. What responsibility, if any, does NORTHCOM have with 
respect to the Defense Critical Infrastructure Program?
    Answer. I understand that NORTHCOM's responsibility is defined by 
the January 2010 Secretary of Defense directive on critical 
infrastructure, which designates NORTHCOM as ``responsible for 
preventing or mitigating the loss or degradation of DOD-owned critical 
assets within its AOR.''
                       organization and authority
    Question. NORTHCOM has been assigned responsibility for force 
protection and antiterrorism within its AOR.
    What actions would you take, if confirmed, to mitigate force 
protection vulnerabilities, and what force protection challenges do you 
anticipate you would face within NORTHCOM's AOR?
    Answer. If confirmed, I will place emphasis on executing a 
synchronized and coordinated antiterrorism program and force protection 
mission across the NORTHCOM AOR. As part of this, if confirmed, I will 
continue the progress made in the area of rapid force protection event 
notification, the use of the e-Guardian system, and the sharing of 
sensitive force protection threat information between law enforcement 
and DOD.
    If confirmed, I anticipate that a force protection challenge may be 
to synchronize and effectively execute emerging force protection and 
security-related policy that is new for DOD. Among the new policy 
initiatives are DOD's Mission Assurance Strategy, the Defense Security 
Enterprise, and potentially, a new emergency management policy 
resulting from the Fort Hood Independent Review process.
    Question. What actions would you take, if confirmed, to ensure 
efficiency in the use of funding for force protection and to prevent 
unnecessary duplication of efforts between NORTHCOM, the Military 
Services, and the Office of the Assistant Secretary of Defense for 
Homeland Defense?
    Answer. I believe a comprehensive resource management approach 
requires the linking of missions, risks, and force protection 
resources. Although NORTHCOM does not have ``oversight authority'' over 
how the Services execute funding, if confirmed, I will work closely 
with the Service components and DOD to identify and eliminate gaps in 
our force protection posture. Projects relating to biometrically-
enabled installation access control, identity management, and 
mitigation of vulnerabilities relating to Defense Critical 
Infrastructure are a few examples where I believe force protection 
efficiencies can be identified. If confirmed, I will ensure all Service 
component requests for combatant commander initiative funds for force 
protection initiatives are properly validated and vetted before they 
are submitted for final approval.
    Question. What specific forces, if any, have been assigned to 
NORTHCOM?
    Answer. NORTHCOM's assigned forces include the Headquarters Staff, 
as well as the following subordinate and component commands: U.S. Army 
North, Marine Forces North, Air Forces Northern, Joint Task Force Civil 
Support, Joint Task Force North and Joint Force Headquarters National 
Capital Region.
    Question. How has the assignment of forces to NORTHCOM changed 
since NORTHCOM was established on October 1, 2002?
    Answer. NORTHCOM achieved full operational capability on 1 October 
2003, with forces assigned consisting of the Service component 
headquarters and two standing Joint Task Force headquarters. The 
following year, the Command stood up a third Joint Task Force, Joint 
Force Headquarters National Capital Region. In 2008, NORTHCOM was 
assigned forces in support of the standing Chemical, Biological, 
Radiological, Nuclear, and High Yield Explosive (CBRNE) Consequence 
Management Execute Order for a period of 12 months (October 2008-
September 2009). In October 2009, the decision was reversed and CBRNE 
Consequence Management forces converted back to an allocated status, 
per the 2010 Global Force Management Allocation Plan. In 2011, 
NORTHCOM's Standing Joint Forces Headquarters was disestablished and 
those resources were re-allocated within NORTHCOM's Operations 
Directorate.
                                 norad
    Question. What is the mission of NORAD?
    Answer. NORAD conducts aerospace warning, aerospace control, and 
maritime warning in the defense of North America. Aerospace warning 
consists of detection, validation, and warning of an attack against 
North America. Aerospace control consists of air sovereignty and air 
defense of United States and Canadian airspace. Maritime warning 
consists of processing, assessing, and disseminating maritime 
intelligence and information and warning of maritime threats to or 
attacks against North America.
    Question. How has NORAD's mission evolved since the creation of 
NORTHCOM?
    Answer. Since the creation of NORTHCOM in 2002, NORAD's mission has 
expanded to include warning of maritime threats to or attacks against 
North America. NORAD also provides ballistic missile warning to 
NORTHCOM to support its ballistic missile defense mission.
    Question. How does NORAD's mission relate to NORTHCOM's mission?
    Answer. The missions of NORAD and NORTHCOM are distinctly separate, 
but complementary. NORAD conducts operations in the air domain and 
provides NORTHCOM warning of maritime threats to or attacks against 
North America, as well as warning of ballistic missile attack. NORTHCOM 
conducts land and maritime defense, U.S.-only air missions, and civil 
support. The commands coordinate on many issues, operate within a 
common security environment, and share a largely integrated 
headquarters staff.
    Question. How does NORAD's mission relate to the mission of the 
DHS?
    Answer. NORAD supports DHS by deterring threats in the air and 
maritime domains and supporting law enforcement when called upon by 
civilian agencies.
    Question. Do you believe that NORAD should continue to have a 
combined operations and planning staff, and a consolidated command 
center, with NORTHCOM? Why or why not?
    Answer. At this time, I do not have an informed opinion on the 
merits of separate operations and planning staffs for NORAD and 
NORTHCOM. However, if confirmed, I will ensure the commands are 
structured to maximize operational effectiveness.
                       northcom joint task forces
    Question. Since the establishment of NORTHCOM, several multi-
service task forces, e. g., Joint Task Force-Civil Support (JTF-CS), 
Joint Task Force-North (JTF-North), have been placed under its 
authority.
    What is the current status of the Joint Task Force organizations 
under NORTHCOM in terms of mission, organization, planning, personnel 
allocation, and capability?
    Answer. NORTHCOM currently has two Joint Task Forces organized 
under U.S. Army North:

          JTF-CS provides command and control of DOD incident 
        management forces that respond to catastrophic chemical, 
        biological, radiological, nuclear, and high-yield explosive 
        events.
          JTF-North supports counterdrug and border patrol support 
        along the United States-Canada and southwestern United States 
        border, and other operations against transnational threats.

    Also, NORTHCOM's Joint Force Headquarters National Capital Region 
provides land-based homeland defense, civil support, and incident 
management in the National Capital Region.
    These three task forces operate as multi-Service organizations 
under NORTHCOM's authority and are manned to conduct homeland defense 
and defense support of civil authorities operations, as directed by the 
President or the Secretary of Defense. Their planning efforts are 
guided through NORTHCOM's family of plans for homeland defense and 
defense support to civil authorities.
                       counter-narcotics efforts
    Question. Each year, DOD spends several hundred million dollars to 
counter the flow of illegal drugs into the United States, yet the 
availability of drugs on the street has not been significantly reduced, 
and some countries continue to face internal security challenges in 
responding to this threat. Some of these funds are executed within the 
NORTHCOM AOR, and some have questioned the effectiveness and focus of 
our counter-narcotics programs.
    What role does NORTHCOM play in DOD's overall counterdrug mission 
and organization?
    Answer. It is my understanding that NORTHCOM and its subordinate 
and component commands support the DOD counterdrug mission in both the 
domestic arena and with our international host nation partners. 
Transnational Criminal Organizations (TCOs) are a regional, 
hemispheric, and global threat to national security and interests. 
These transnational threats include drugs and other illicit trafficking 
activities. NORTHCOM has a very close relationship with SOUTHCOM and 
continues to build closer relationships with the other combatant 
commands in sharing information and situational awareness of TCO 
activities. NORTHCOM also works very closely with its host nation 
partners within its AOR, including its Canadian partners and with The 
Bahamas on counterdrug matters.
    Question. What is your assessment of the ongoing counternarcotics 
operations within the NORTHCOM AOR and the geographic seam NORTHCOM 
shares with SOUTHCOM?
    Answer. As I understand it, counternarcotics operations in the 
NORTHCOM AOR are conducted at the local, State, Federal, and bi-lateral 
level. As Joint Interagency Task Force-South succeeds in interdicting 
an increasing amount of the traffic heading to North America, TCOs 
quickly adapt to continue the flow of illicit drugs. Drug demand is a 
significant challenge in our country and the United States, and our 
neighbors together are trying to approach this and the flow of drugs as 
a whole-of-government(s) approach to the problem.
    The geographic boundary between SOUTHCOM and NORTHCOM is a key 
route for drugs to enter Mexico on their way to the United States. My 
understanding is that the two commands are working closely on a 
regional approach in support of Mexico, Guatemala, and Belize. The 
Mexican government's efforts against TCOs have forced drug trafficking 
activities further south in these border countries where those 
governments have limited capability and capacity to fight TCOs. If 
confirmed, I will work to ensure a synchronized, seamless effort across 
borders between the two areas of responsibility (AOR). If confirmed, I 
will also further strengthen the command's relationship between Joint 
Interagency Task Force-South and NORTHCOM's Headquarters and 
subordinate commands, and continue to facilitate coordinated efforts 
with interagency and host nation partners.
    Question. How are counterdrug operations coordinated across 
combatant command boundaries with PACOM?
    Answer. Counterdrug operations on the boundaries with PACOM are 
coordinated via shared intelligence information among combatant 
commands, interagency partners, and the National Interdiction Centers, 
which includes PACOM's Joint Interagency Task Force-West. I believe 
synchronization between combatant commands is critical to counterdrug 
operations, and even more important is bringing to bear the resources 
of the Nation (a whole-of-government approach) to truly achieve unity 
of effort. If confirmed, I will continue to foster a strong 
relationship with PACOM.
    Question. If confirmed, what changes, if any, would you propose?
    Answer. If confirmed, I will examine NORTHCOM's relationship with 
the other combatant commands and determine if any changes are needed.
    Question. How would you recommend that the success of the 
Department's counter-narcotics programs be measured?
    Answer. As I've served in many capacities over the last 10 years of 
my career as a Commanding General, I've seen that being a commander is 
a time for assessing how command missions are being executed and then 
taking appropriate actions as needed. If confirmed, I commit to looking 
closely at the current capabilities and partnering efforts in place, as 
well as the resultant effects, and provide you my thoughts on this 
important effort.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region, or should 
the Department's efforts focus elsewhere?
    Answer. If confirmed, I look forward to developing my personal 
views regarding the Department's programs for Mexico and its neighbors 
to improve the success of countering the threats from TCOs.
    Question. Compared to other missions that you would be responsible 
for as Commander, NORTHCOM, if confirmed, where would you rank counter-
narcotics in terms of its contribution to our national security and the 
ability of DOD to make a meaningful contribution?
    Answer. I believe that there is no higher priority mission for 
NORTHCOM than to defend the United States and its interests. Yet, 
countering the devastating effects related to the TCOs and its 
importance relative to U.S. national security is a very important 
mission for NORTHCOM, and thus I would rank NORTHCOM's role in 
counternarcotics high. If confirmed, I look forward to contributing to 
the counternarcotics effort within the authorities granted to NORTHCOM.
    Question. There has been a surge in drug-related violence in Mexico 
over the past year, which has increased the risk of cross-border 
violence into the United States. Much of the drug supply comes into 
Mexico across its southern border. The vast majority of Latin America, 
however, is in the SOUTHCOM AOR, so the security situation in Mexico is 
an example of the need for a well-coordinated effort between NORTHCOM 
and SOUTHCOM.
    What is your vision of how SOUTHCOM and NORTHCOM could work 
together in a fully coordinated and seamless fashion with respect to 
Mexico and other security challenges?
    Answer. I support the Chairman of the Joint Chiefs of Staff's 
belief that efforts to disrupt illicit sources and transit zones must 
be coordinated across North, Central, and South America, and the 
Caribbean. If confirmed, I welcome the opportunity to work with 
SOUTHCOM, the interagency community, and my Mexican counterparts to 
develop a regional strategy that harnesses the valuable lessons learned 
from Joint Interagency Task Force-South and the Mexican military's 
experience in confronting TCOs.
    Question. The United States and Mexico announced in 2007, the start 
of a multiyear, bilateral security agreement called the Merida 
Initiative. This Initiative aims to combat drug trafficking and other 
criminal activity along the U.S.-Mexican border, as well as in Central 
America. The U.S.-Mexican border is viewed as especially important for 
U.S. counternarcotics efforts because Mexico is currently the primary 
point of entry for cocaine and other drug shipments smuggled into the 
United States.
    What is your understanding of the Merida Initiative as it relates 
to NORTHCOM?
    Answer. I believe the Merida Initiative has placed us on the road 
to success in terms of the strong U.S. commitment to shared 
responsibility in countering the threat from TCOs in North America. The 
military contribution to the Merida Initiative is a relatively modest 
portion of the total package of support, most of which is law 
enforcement-related and is now making a significant positive impact in 
Mexico. The long-term success will depend on Mexico's capacity to 
sustain and advance short-term gains, and to give communities the 
confidence that they can restore the rule of law.
    Question. What is your view of the appropriate role of DOD in 
countering transnational drug cartels and gangs?
    Answer. In my view, the Department's role in countering TCOs is one 
of support for other U.S. Government efforts and our Mexican partners 
as well. It is my understanding that NORTHCOM is focused on 
contributing to the success of the objectives framed by the Beyond 
Merida Initiative: disrupt TCOs; promote justice, and the rule of law; 
build strong and resilient communities; and create a 21st century 
border. To these ends, the Department is focused on contributing the 
necessary capabilities and support to disrupt, degrade, or defeat TCOs' 
abilities that would negatively affect the national security and 
interests of United States and partner nations.
             security relationships with canada and mexico
    Question. The NORTHCOM AOR includes the land areas of the United 
States, Canada, and Mexico. The bi-national NORAD Command ensures close 
cooperation between the United States and Canada on security matters. 
NORTHCOM has been working with the Mexican military on security 
cooperation related to Mexico's efforts to counter TCOs that are 
involved in trafficking and causing extraordinary violence. Joint Task 
Force-North (JTF-N) has established itself as a active partner with 
U.S. law enforcement, mitigating cross border threats posed by 
trafficking in narcotics, weapons, and humans.
    What is your assessment of the current security relationship 
between the United States and Canada?
    Answer. Canada and the United States are close friends, allies, and 
trading partners. U.S. defense arrangements with Canada pre-date World 
War II and are one of our country's most extensive defense pacts. 
Canada and the United States view North American defense and security 
as shared responsibilities. NORAD is symbolic of this close defense 
relationship and has served as the epitome of the unique and long-
lasting security cooperation relationship between our Nations for over 
53 years.
    I believe the NORAD and NORTHCOM relationship with Canada is 
exceptionally strong, especially the relationship that has been 
developed with Canada Command. If confirmed, I will be honored to 
contribute to the long-standing partnership our country shares with 
Canada.
    Question. What is your assessment of the current security 
relationship between the United States and Mexico?
    Answer. My view is that the current security relationship between 
the U.S. and Mexican military is at its highest level ever at all 
echelons of command. If confirmed, I look forward to building upon many 
personal and professional relationships that have been formed by 
NORTHCOM. As discussed between the Presidents of Mexico and the United 
States in March 2011, the countries are strategic partners with shared 
responsibilities in the fight against the TCOs affecting the safety and 
security of North America.
    Question. What is your assessment of the security challenges to the 
United States posed by TCOs in Mexico?
    Answer. I believe that in today's increasingly globalized world, 
the prosperity and security of our friends and neighbors in North and 
Central America directly impact the welfare of the United States. 
Narcotics continue to be a significant security challenge to the United 
States and as long as there is demand within our borders, cash and 
weapons will continue to find their way into the hands of TCOs. TCOs 
not only traffic illicit drugs, they are involved in other significant 
criminal activity, such as extortion, robbery, kidnapping, trafficking 
in firearms and persons, and as evident in the 400 percent increase in 
violence over the past 3 years, they are extremely ruthless and brutal. 
Many of the TCOs are better financed and armed than many of the Mexican 
law enforcement agencies. This situation presents a substantial 
security challenge to the United States as it devastates the 
communities of our Mexican friends.
    Question. What is your assessment of the security situation along 
the U.S.-Mexico border?
    Answer. Responsibility for security along the U.S.-Mexico border 
falls under the responsibility of DHS. If confirmed, I look forward to 
working with the DHS and many others in the interagency community and, 
when directed by the President and the Secretary of Defense, providing 
DOD support to civil authorities.
    Question. Would you characterize NORTHCOM's efforts to protect our 
southern border, specifically JTF-N's countering of TCOs, as a success?
    Answer. I believe that given the counternarcotics resources 
applied, yes, I would characterize NORTHCOM's efforts as successful and 
making a difference, but this remains an economy of force effort. If 
confirmed, I look forward to examining NORTHCOM's efforts to support 
civil authorities on the border and making a first-hand assessment.
    Question. What is your understanding of NORTHCOM's support to civil 
authorities operating along the southern border?
    Answer. It is my understanding that NORTHCOM supports civil 
authorities when directed by the President or the Secretary of Defense. 
NORTHCOM has partnered with U.S. Customs and Border Protection and 
other interagency community partners to provide DOD capabilities along 
the U.S. southern border.
    Question. What improvements in border protection capability, if 
any, would you recommend?
    Answer. Since DHS is responsible for advocating for border 
protection capabilities, I would defer this question to the DHS.
    Question. If confirmed, what would be your goals as Commander of 
NORTHCOM for improving security relations with Mexico, and how would 
you plan to achieve them?
    Answer. If confirmed, my primary goal will be to continue to 
support the Mexican military to combat the threat of TCOs as 
effectively as possible while fully respecting Mexican sovereignty. The 
Mexican military has been asked by its civilian leadership to actively 
support Mexican law enforcement agencies to combat TCOs, while 
respecting Mexico's democratic ideals and the Nation's commitment to 
the Rule of Law and Human Rights. Mexican Security Forces have 
exhibited exemplary moral, political, and physical courage in combating 
TCOs. This struggle is being conducted on Mexican soil and Mexican 
families are being impacted by the recent escalation in TCO-related 
violence. If confirmed, I support NORTHCOM plans to continue to 
increase senior level Distinguished Visitor engagements, Subject Matter 
Expert Exchanges, Mobile Training Teams, and exercises with the Mexican 
Military to better counter the TCO threat.
                        unmanned aerial vehicles
    Question. Unmanned aerial vehicle (UAV) flight within the 
continental United States is severely restricted including portions of 
the Canadian and Mexican borders. The Federal Aviation Administration 
is studying how to integrate unmanned systems and conventionally 
piloted aircraft in the same airspace.
    In your view, have airspace restrictions on unmanned aerial systems 
(UAS) hindered the development and evolution of these aircraft?
    Answer. In my view, airspace management is more of a challenge to 
UAV employment, than it is to development and evolution.
    Question. Would you recommend opening larger parcels of airspace 
within the continental United States to UAS/UAV over flight?
    Answer. It is my understanding that only the Secretary of Defense 
may approve the use of unmanned aircraft systems for defense support of 
civil operations, including Federal, State, local, and tribal 
government organizations. If confirmed, in that case, I would 
coordinate airspace requirements for an operation with the lead agency.
                        northcom-state relations
    Question. NORTHCOM has the primary military responsibility to 
provide defense support to civil authorities when directed by the 
President and the Secretary of Defense, including consequence 
management operations. Such military assistance would support Federal 
assistance to State and local emergency response units.
    Do you believe it is important for NORTHCOM to have an 
understanding of the emergency response capabilities and plans of the 
various States before a crisis arises, in order to optimize NORTHCOM's 
consequence management support to civil authorities?
    Answer. Yes. It is my belief that State forces for consequence 
management, including the new Homeland Response Forces (HRF), are 
integral components of the Chemical, Biological, Radiological, and 
Nuclear (CBRN) Response Enterprise. It is my understanding that the 
State National Guards, the National Guard Bureau and interagency 
partners such as the Federal Emergency Management Agency have 
participated in NORTHCOM's development of a plan for CBRN response. I 
believe that this unprecedented level of cooperation will ensure the 
success of the CBRN Response Enterprise in the whole-of-government 
response to a CBRN attack or incident.
    Question. If so, how would you plan to ensure that NORTHCOM has 
sufficient knowledge of State emergency response capabilities, 
including capabilities of National Guard units, capabilities of title 
10 Reserve component forces, and a good working relationship with State 
emergency response leaders?
    Answer. I understand NORTHCOM has an array of initiatives and 
efforts to sustain awareness of civil support requirements, including 
robust relationships between Defense Coordinating Officers and Defense 
Coordinating Elements and State emergency officials within their 
Federal Emergency Management Agency regions; the establishment of the 
Regional Desk Officer program at NORTHCOM headquarters; direct 
interaction with their assigned states by Title 10 Deputy Commanders 
under the Dual-Status Commander concept; and participation in state 
planning for HRFs as part of the Chemical, Biological, Radiological, 
and Nuclear Response Enterprise. In addition, DOD has established the 
policy and procedures to share operational plans with mission critical 
partners, to include Title 10 Reserve component forces, the National 
Guard of the States, and the National Guard Dual-Status Commanders. It 
is my belief that these efforts will enhance shared awareness of state 
military response plans and requirements. If confirmed, I will continue 
to support unity of effort in this important area.
                      force provision for northcom
    Question. NORTHCOM has the mission of conducting military 
operations for homeland defense and, when directed by the President or 
Secretary of Defense, for providing military assistance to civil 
authorities, including consequence management for natural disasters and 
Chemical, Biological, Radiological, Nuclear, and high-yield Explosive 
(CBRNE) incidents. Yet NORTHCOM has relatively few military forces 
assigned to it on a permanent basis.
    What is your understanding of how forces are planned to be 
allocated to NORTHCOM for its full range of mission requirements?
    Answer. It is my understanding that NORTHCOM's contingency plans 
and orders for all assigned missions contain force requirements that 
are allocated by joint force providers. Forces are not normally 
identified and sourced until just prior to a planned event or impending 
incident, or immediately after a no-warning incident. The exceptions 
are the standing Execute Orders for Chemical, Biological, Radiological, 
and Nuclear Consequence Management response forces and the Homeland 
Defense Quick Reaction Force/Rapid Response Force. Additionally, under 
the Defense Support of Civil Authorities Operations Standing Execute 
Order, the NORTHCOM Commander has the authority to place certain 
military capabilities on a 24-hour prepare-to-deploy order in advance 
of or in response to a contingency or national emergency.
    Question. If confirmed, how do you intend to ensure that NORTHCOM 
will have sufficient forces available to it, properly trained and 
equipped, to accomplish its assigned missions?
    Answer. If confirmed, I intend to use the established Force 
Allocation Process to identify NORTHCOM's force requirements for each 
of its unique assigned missions to the joint force providers to ensure 
that allocated forces are prepared to support homeland defense and 
civil support missions. If confirmed, I will ensure that those 
requirements are matched with trained, equipped, and ready forces that 
meet NORTHCOM's mission requirements, using the Defense Readiness 
Reporting System to review unit readiness and training metrics.
    Question. If confirmed, how will you monitor the personnel, 
equipment, and training readiness of U.S. military forces (Active and 
Reserve) for homeland defense mission-essential tasks in support of 
NORTHCOM's contingency plans, and for its defense support to civil 
authorities (DSCA) missions?
    Answer. I understand that NORTHCOM has the ability to track the 
readiness (personnel, equipment, and training) of all DOD forces within 
its AOR. This includes both Title 10 and Title 32 forces, using the 
Defense Readiness Reporting System. For units assigned to NORTHCOM 
missions, if confirmed, I will work with the Services and the National 
Guard Bureau to validate their readiness.
                       northcom-dhs relationship
    Question. DHS is still a relatively new Federal agency, and is 
continuing to improve its ability to meet its homeland security 
missions.
    As the DHS improves and matures its homeland security capabilities, 
do you expect that will reduce the demands on NORTHCOM to provide 
defense support to civil authorities, including support for crisis 
response planning?
    Answer. It is my understanding that DHS capabilities to respond to 
disasters continues to improve and that the relationship between DOD 
and DHS is very strong. However, I believe that NORTHCOM will have an 
enduring mission to provide DOD support and capabilities to civil 
authorities in accordance with the National Response Framework.
    Question. What do you consider to be the appropriate role for DOD 
and NORTHCOM's vis-a-vis DHS and State authorities in identifying and 
validating the dual-use equipment and other requirements associated 
with defense and homeland security missions?
    Answer. It is my understanding that the role of NORTHCOM, in close 
coordination with other DOD entities, identifies dual-use equipment 
required to support civil authorities in natural or manmade disasters. 
I believe this is an appropriate role for DOD and if confirmed, I look 
forward to working with DHS and the States to identify equipment 
requirements.
              response to christmas day aircraft bomb plot
    Question. There has been considerable confusion about the events 
surrounding the attempted bombing of a commercial U.S. aircraft over 
Detroit on Christmas Day 2009.
    Do you believe that NORTHCOM or NORAD have any responsibility for 
apprehending, detaining, or interrogating a terrorist suspect who tries 
to destroy an aircraft in flight inside U.S. airspace? If so, what is 
that role?
    Answer. No. I believe U.S. law enforcement agencies have the sole 
responsibility for the apprehension, detainment, and interrogation of 
any individual alleged to have committed a criminal act within U.S. 
airspace.
                             national guard
    Question. There is still debate about the role the National Guard 
should play in homeland security and defense. In an April 21, 2008, 
letter to the committee concerning the recommendations of the 
Commission on the National Guard and Reserves, Admiral Mullen, the 
Chairman of the Joint Chiefs of Staff, wrote that, ``I have some 
concerns about the Commission's ideas on enhancing the Defense 
Department's role in the Homeland. While Reserve component civil 
support requirements are important, they should not be of equal 
importance to DOD combat responsibilities.''
    Do you agree with this view of Admiral Mullen?
    Answer. Yes. All of our Armed Forces are organized, trained, and 
equipped for their primary mission to fight and win our Nation's wars. 
There are key roles the Total Force plays in civil support missions and 
it is important that our forces remained postured that important 
mission.
    Question. Do you believe that defending the homeland or civil 
support should become the National Guard's primary missions?
    Answer. No. It is my belief that the National Guard as a part of 
the Total Force has a critical responsibility in homeland defense and 
civil support missions, but should not be limited from participating in 
other vital DOD missions.
    Question. What is the current status of the working relationship 
between NORTHCOM, the National Guard Bureau, and individual State 
National Guard headquarters?
    Answer. It is my understanding that Admiral Winnefeld has greatly 
enhanced the cooperation and collaboration among NORTHCOM, the National 
Guard Bureau, and individual States' Guard headquarters. If confirmed, 
one of my priorities will be to ensure that these relationships 
continue to expand and mature as a natural extension of planning and 
executing NORTHCOM's missions.
    Question. If confirmed, what type of liaison relationships for 
planning and operational purposes would you advocate between NORTHCOM, 
DHS, Federal, State, and local first responders, and National Guard 
units under State authority?
    Answer. My experience in Afghanistan and Iraq solidified my belief 
in strong and transparent relationships with liaisons at all levels to 
coordinate and collaborate for planning and operational details. If 
confirmed, I will continue to enhance existing partnerships between all 
of NORTHCOM mission partners, and where appropriate, forge new 
relationships.
                    dual-status command arrangement
    Question. The administration, including Defense Department and 
NORTHCOM leadership, has been working with the Council of Governors to 
define appropriate means for Federal military support to the states in 
the event of natural disasters or other disasters. This effort has 
apparently produced agreement on a Joint Action Plan, and on the 
concept for using ``dual-status commanders'' in each State to ensure 
that Federal military forces are able to support the needs of the 
Governors.
    What is your understanding of the Department's plan of action with 
respect to implementing the agreement on a Joint Action Plan?
    Answer. My understanding is that the Council of Governors, DHS, and 
DOD endorsed the Memorandum of Agreement with the States earlier this 
month, paving the way for a Dual-Status Commander in each of the States 
and territories. I believe that NORTHCOM supports the DOD position to 
endorse the Joint Action Plan.
    Question. Do you support this effort to establish appropriate 
command and control arrangements between the states and the Federal 
Government to ensure that Federal military forces, including the 
Reserves, are available to support the needs of the Governors in time 
of crisis?
    Answer. Yes. I understand the dual-status command construct has 
been agreed to by the Governors and the DOD as a mechanism to 
strengthen unity of effort and improve speed of response to domestic 
emergency operations when Federal support has been requested and 
approved. If confirmed, I intend to continue to support the rapid and 
effective delivery of capabilities to citizens in need in order to 
mitigate the effects of major disasters or emergencies, whether natural 
or manmade, when directed by the Secretary of Defense or the President.
    Question. If confirmed, would you plan to continue working with the 
Council of Governors to improve coordination and collaboration between 
the Federal and state levels of government on the use of military 
forces for emergency response?
    Answer. I believe that the Council of Governors has been integral 
in the formulation of the Joint Action Plan for Developing Unity of 
Effort, advancing the Dual-Status Commander Memorandum of Agreement, 
and supporting legislation to allow Reserve mobilization for events 
that require DOD support of civil authorities. If confirmed, I welcome 
the opportunity to work with the Council to continue important progress 
in many areas aimed at improving our ability to meet our mission 
requirements and the needs of the citizens we serve.
                      cbrne response capabilities
    Question. NORTHCOM has two primary missions: Homeland Defense and 
Defense Support to Civil Authorities (DSCA), including preparation for 
and response to an incident or attack involving Chemical, Biological, 
Radiological, Nuclear, or high-yield Explosive (CBRNE) materials or 
weapons, in the NORTHCOM AOR.
    If confirmed, how would you approach the challenge of ensuring 
adequate military forces, capabilities, and plans to respond to such 
incidents in support of civil authorities?
    Answer. I fully understand that failure is not an option in any 
CBRN response, and that speed is essential when responding. Moreover, I 
also understand that our partnership with the National Guard Bureau, 
the States, and other Federal agencies is critical to success, both in 
planning and in execution.
    If confirmed, I intend to leverage my predecessor's efforts in 
continuing to work closely with the National Guard Bureau, the States, 
and the Services to ensure all forces established to accomplish this 
mission are, and remain, properly manned, trained, and equipped, and 
that response timelines and command and control relationships during 
execution of this mission are clearly understood and verified.
    Question. There are currently a variety of organizations and units 
intended for CBRNE response and consequence management, including JTF-
CS, the Defense Consequence Management Response Force (DCMRF), the U.S. 
Marine Corps Chemical-Biological Incident Response Force (CBIRF), 
National Guard HRFs, National Guard CBRNE Enhanced Response Force 
Package (CERFP) units, and National Guard Weapons of Mass Destruction 
Civil Support Teams (WMD-CSTs).
    If confirmed, how would you plan to manage this mix of capabilities 
to ensure the best possible response force to support civil authorities 
in the event of a CBRNE incident, and to avoid unnecessary duplication?
    Answer. I understand the existing two CBRNE Consequence Management 
Response Forces (CCMRFs) have, to this point, provided a responsive and 
flexible capability with federally-controlled forces that are trained, 
equipped, exercised, evaluated, and employed by NORTHCOM to respond to 
near-simultaneous incidents. The existing CCMRFs will stand down at the 
end of this fiscal year to establish the new CBRN Response Enterprise, 
directed by the 2010 Quadrennial Defense Review (QDR).
    I am also aware that the 2010 QDR directed the establishment of 
regional CBRN response capability by the National Guard, called HRFs, 
in order to leverage geographic proximity to quicken the response. I 
understand that establishment of the HRFs is ongoing, and recognize 
that challenges are likely as we fully implement the CBRN response 
enterprise concept.
    If confirmed, I will closely partner with the National Guard 
Bureau, and the States, to ensure implementation of the new CBRN 
Response Enterprise is completed as directed by the 2010 QDR and that 
existing forces are ready to answer the call when needed.
    Question. What is your assessment of the ability of the revised DOD 
Consequence Management Response Forces (DCMRF), as currently 
constituted, to provide a significant capability to support Federal 
civil authorities in the event of a CBRNE incident?
    Answer. My assessment is that each of these forces presents 
complementary capabilities that enhance an overall CBRN Consequence 
Management response. I understand that the new Defense CBRN Response 
Force is a relatively large force (5,200 personnel) that contains the 
required centralized capabilities to integrate with and support a 
Federal response under the National Response Framework. These 
capabilities include search and extraction, patient decontamination, 
medical triage and stabilization, air and ground casualty evacuation, 
mortuary affairs, information dissemination, communications, logistics, 
and a command and control structure to support integration of follow on 
forces.
    If confirmed, I look forward to seeing the readiness and capability 
of these forces and I will report to the committee if I determine there 
are any significant concerns.
    Question. How would you ensure the necessary level of coordination 
and planning between the DCMRF and National Guard HRFs to ensure an 
adequate response to a CBRNE incident?
    Answer. I understand that under the new CBRN Response Enterprise, 
planning activities are linked between States hosting regional HRFs and 
NORTHCOM to ensure integration between State and Federal plans. HRF 
plans are designed to support the States within the Federal Emergency 
Management Agency (FEMA) Region and also a national response. 
Therefore, HRF plans support the NORTHCOM Concept Plan (CONPLAN) and 
likewise, the NORTHCOM CONPLAN supports regional HRF plans. As I 
understand it, the National Guard Bureau and U.S. Army North have been 
closely collaborating during the development of these plans and if 
confirmed, I intend to further strengthen planning relationships and 
integrate other activities, such as readiness exercises to ensure an 
adequate, effective, and integrated response.
    Question. Do you believe that U.S. military forces providing 
Defense Support to Civil Authorities in the event of CBRNE incidents 
should be under the command of the Commander, NORTHCOM?
    Answer. When Federal forces respond to a CBRN incident, it would be 
at the request, and in support of the State Governor(s). If title 10 
forces do respond, I believe the Dual-Status Command arrangement may 
also be identified as a way to command and control these forces to 
achieve unity of effort. During execution, Federal forces can 
anticipate mission assignments, as permitted under the National 
Response Framework, but must always remain in consultation with State 
Governors and the designated Federal primary agency.
                          wmd-csts and cerfps
    Question. There is now at least 1 National Guard Weapons of Mass 
Destruction-Civil Support Team (WMD-CST) in each of the 54 States and 
territories, and there are 17 National Guard CERFP units. In addition, 
there are 10 HRFs planned, 1 in each FEMA Region.
    Do you believe the WMD-CSTs and CERFPs are appropriately organized, 
sized, trained, and equipped to accomplish their assigned missions?
    Answer. It is my understanding that the States' WMD-CSTs are 
appropriately organized, sized, trained and equipped to accomplish 
their assigned mission. If confirmed, I will review how NORTHCOM 
supports the training and readiness of WMD-CSTs through its Army 
component, U.S. Army North to ensure that they can accomplish their 
missions.
    Question. If not, what changes do you believe are needed?
    Answer. If confirmed, as DOD implements the new CBRN Response 
Enterprise, I will look for opportunities to recommend adjustments to 
the Enterprise to ensure a rapid and effective response to mitigate the 
effects of a CBRN incident on our citizens.
                             cybersecurity
    Question. DOD recently issued its cybersecurity strategy. Cyber 
threats could affect both our military and civilian sectors in the 
United States, public and private.
    What is NORTHCOM's current role in cybersecurity within its Area of 
Operations, and how does it relate to the cybersecurity role of DHS?
    Answer. DHS is the lead Federal agency for national security policy 
and programs. I understand NORTHCOM is in a supporting role to the DHS. 
STRATCOM and its subordinate command, U.S. Cyber Command (CYBERCOM), 
will support the technical aspects of mitigating a major cyber attack. 
NORTHCOM, in its role of protecting critical infrastructure within the 
homeland, will provide physical support to the DHS as part of the 
defense support of civil authorities' mission. If confirmed, I will 
work with the DHS to further refine these relationships.
    Question. What is the relationship between NORTHCOM and CYBERCOM?
    Answer. My understanding is that NORTHCOM works with STRATCOM and 
CYBERCOM on cyber issues ranging from attack mitigation to network 
defense. NORTHCOM is generally in support of physical aspects, while 
CYBERCOM leads on the virtual front from within the .mil domain.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile. If confirmed, you will be a member of the WHINSEC 
Board of Visitors.
    What is the relationship between NORTHCOM and WHINSEC?
    Answer. The Commander of NORTHCOM serves on the Board of Visitors 
(BoV) for WHINSEC, which provides for an opportunity to contribute to 
the curriculum and ensure compliance with U.S. laws and policy. If 
confirmed, I look forward to serving on the WHINSEC BoV.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. Yes. I see WHINSEC as a school that teaches and influences 
future Latin American leaders in military topics as well as human 
rights. It is my belief WHINSEC's education and training have had a 
significant impact on the Latin American leaders in attendance annually 
from military, law enforcement, and civilian institutions.
    Question. In your view, how should NORTHCOM participate in command 
oversight and curriculum development?
    Answer. It is my understanding that NORTHCOM is already 
participating in command oversight and curriculum development for 
WHINSEC. In addition, the Commander of NORTHCOM serves on the WHINSEC 
Board of Visitors (BoV), which reviews and advises on areas such as 
curriculum, academic instruction, and fiscal affairs of the Institute, 
and if confirmed, I will continue this support. I believe the WHINSEC 
BoV reviews provide an invaluable contribution to ensure relevance and 
consistency with U.S. policy, laws, regulations, and doctrine.
    Question. In your view, what more, if anything, does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. I believe that WHINSEC must continue to emphasize human 
rights in its curriculum and address the concerns of human rights 
organizations. If confirmed, I will take a close look at this critical 
portion of the curriculum and advocate for any changes, if needed.
    Question. In your view, how can WHINSEC improve its outreach 
efforts to individuals or groups interested in its activities, 
particularly those who have accused the school of contributing to human 
rights violations by former students?
    Answer. I have not formed an opinion on this critical issue. If 
confirmed, I look forward to serving on the Board of Visitors and 
developing initiatives for broadened outreach efforts in support of 
their overall mission.
    Question. If confirmed, will you attend the WHINSEC Board of 
Visitor's annual meeting?
    Answer. Yes. If confirmed, I will be honored to serve on the 
WHINSEC Board of Visitors and attend the annual meetings.
                       intelligence sharing/nctc
    Question. What is NORTHCOM's role and involvement in developing 
intelligence assessments regarding terrorist threats?
    Answer. It is my understanding that NORAD and NORTHCOM's 
Intelligence Directorate receives raw reports, information and analysis 
from other intelligence agencies and organizations within the 
Intelligence Community and within DOD. Command terrorism analysts 
review this information for threats to the NORTHCOM AOR. This 
information is analyzed and then developed into original threat 
assessments that are provided to the Commander, NORAD and NORTHCOM and 
component commands, tailored to support unique NORAD and NORTHCOM 
missions and responsibilities. This analysis is also provided to the 
wider Intelligence Community (IC) at large to supplement analysis and 
assessments generated by the other elements of the IC, adding to the 
greater collective body of information.
    Question. What intelligence agencies are involved in providing 
input to U.S. NORTHCOM's staff for the development of intelligence 
assessments?
    Answer. I understand that NORTHCOM receives and has access to 
information from all members of the Intelligence Community, as well as 
members of select Federal law enforcement entities. This information 
provided by other mission partners is the basis for Command analytic 
assessments and intelligence products. Multiple Intelligence 
organizations also provide senior liaisons to NORTHCOM to ensure 
seamless integration of analysis and operations. NORTHCOM liaison 
officers are likewise embedded in the Federal Bureau of Investigation's 
National Joint Terrorism Task Force, the DHS's Office of Intelligence 
and Analysis, the National Counterterrorism Center (NCTC), and Canadian 
Defence Intelligence staff to ensure a synchronized understanding of 
significant terrorist threats that could necessitate command responses 
or preparedness.
    Question. What is the current relationship between NORTHCOM and 
NCTC?
    Answer. It is my understanding that in addition to the terrorism 
analyst NORTHCOM assigns to the NCTC, NORTHCOM terrorism analysts work 
collaboratively and frequently with NCTC analysts focused on terrorist 
threats to North America. The Command frequently sends analysts to 
support NCTC working groups and conferences to ensure Command 
visibility into developing threats which may impact NORTHCOM mission 
sets, particularly Force Protection, threats to the aviation sector, or 
threats with potential Weapons of Mass Destruction and Consequence 
Management implications. Command terrorism analysts also periodically 
augment NCTC analytic elements during National Special Security Events 
or other special events as appropriate.
    Question. Does NORTHCOM have representatives located at the NCTC on 
a daily basis? If so, what are their functions and responsibilities? If 
not, why not?
    Answer. Yes. NORTHCOM has a full-time civilian intelligence officer 
billet assigned to the Directorate of Intelligence in the NCTC. 
Additionally, NORTHCOM has assigned an active duty officer as an 
operations representative to the Directorate of Strategic Operational 
Planning at the NCTC. The objectives for these arrangements are to 
produce homeland threat analysis for the NCTC, while ensuring the 
Command has visibility into homeland threats that may affect NORTHCOM 
mission sets.
    Question. Do you believe NORTHCOM representatives at NCTC have the 
access to intelligence needed to fully perform their functions?
    Answer. It is my understanding that NORTHCOM's analyst embedded in 
the NCTC has excellent access to terrorist threat information, 
including information not shared directly with the Command or other DOD 
elements. NORTHCOM continues to work with NCTC to find the balance 
between greater information sharing and protecting sensitive 
operations, investigations, and sources.
    Question. How do posse comitatus, privacy restrictions, and other 
laws and regulations concerning the collection of intelligence within 
the United States, affect the way U.S. NORTHCOM receives and uses 
intelligence?
    Answer. It is my understanding that NORTHCOM is extremely careful 
to comply fully with intelligence oversight law and policy in 
conducting all intelligence activities in support of its mission. If 
confirmed, I will work hard to ensure all intelligence activities 
conducted in support of NORTHCOM operations continue to be reviewed by 
intelligence oversight specialists, thus ensuring the Command 
completely complies with law and policy.
                       ballistic missile defense
    Question. One of NORTHCOM's missions is the defense of the United 
States against the threat of limited ballistic missile attack from 
nations such as North Korea and Iran. The February 2010 Ballistic 
Missile Defense Review report stated as one of its policy priorities: 
``Before new capabilities are deployed, they must undergo testing that 
enables assessment under realistic conditions.''
    Do you agree that it is essential that our deployed ballistic 
missile defense systems are operationally effective?
    Answer. Yes. Our deployed missile defense system provides a 
defensive capability against a limited number of missiles launched by 
potential adversary rogue nations. The spiral development process used 
to develop this capability relies in part on ensuring the defensive 
capabilities we have are indeed operationally effective. If confirmed, 
I will continue to work with all responsible agencies to ensure the 
system is operationally effective.
    Question. Do you agree that it is important to conduct 
operationally realistic flight tests to demonstrate the operational 
capability and reliability of the Ground-based Midcourse Defense (GMD) 
system?
    Answer. Yes. The ballistic missile defense capability now fielded 
used a capability-based development process. This process allowed the 
United States to rapidly field a capability to meet the emerging threat 
posed by rogue nations developing long-range ballistic missiles. An 
essential part of that development process is an operationally-
realistic testing program to verify the capabilities being fielded and 
ensure a complete understanding of those capabilities by all of the 
commands and agencies who support this mission and will employ these 
systems. Because our missile defense capabilities were tested and then 
fielded following processes to ensure operational effectiveness, we 
have a more complete understanding of our missile defense capabilities, 
and can continue to improve those capabilities over time to ensure we 
outpace developments in the threat.
    Question. Do you support the continued modernization and 
sustainment of the GMD system?
    Answer. I believe that continued modernization ensures the Ground 
Missile Defense (GMD) system will pace ahead of the threat. Continued 
sustainment of the GMD system ensures that the capabilities the Missile 
Defense Agency (MDA) has already developed and fielded will be ready 
when needed.
    Question. Do you believe that understanding and correcting the GMD 
program should be the MDA's highest priority?
    Answer. If confirmed, I will work with the Director of the MDA to 
balance the needs to continually assess and maintain our current system 
with development of future capabilities, as I explain my requirements 
as the combatant commander responsible for operation of the ground 
missile defense system.
    Question. The GMD system has experienced two successive flight test 
failures, and the Director of the MDA is working to fully understand 
and correct the problems that caused the December 2010 flight test 
failure, including verifying the correction with two flight tests, 
before resuming production of the kill vehicles for GMD interceptors.
    Do you agree that we should verify the successful correction of the 
flight test failure problem through extensive testing, and demonstrate 
that the system works before resuming production of the interceptor 
kill vehicles?
    Answer. Yes. I understand the ballistic missile defense system is 
based on a design, test, fix, and deploy process. The MDA's efforts to 
do extensive analysis of the failure and follow that with several tests 
to verify the success of the fix prior to continuing production and 
delivery of new exoatmospheric kill vehicles (EKV) is in line with this 
process. Fixing the EKV problems now on the production line will ensure 
we do not need to potentially invest additional dollars in the future 
to repair faulty EKVs.
    Question. What priority would you give to the funding of planned 
work deferred as a result of such remediation efforts?
    Answer. The Ballistic Missile Defense Review stated homeland 
defense is the primary concern for any current or future Ballistic 
Missile Defense and Ground-Based Missile Defense programs. I understand 
the MDA continues to keep that foremost in their development of all 
ballistic missile capabilities. If confirmed, I will work with the MDA, 
as well as combatant commanders and agencies supporting missile defense 
capabilities, to ensure the systems we need for future threats is 
appropriately balanced against the risk of any deferment of work.
                missile defense cooperation with russia
    Question. The United States and NATO are pursuing efforts at 
missile defense cooperation with Russia against common missile threats 
from Iran. President Obama has made clear that any such cooperation 
would not limit U.S. or NATO missile defense capabilities.
    Do you agree that missile defense cooperation with Russia could 
enhance our security and, if so, what security benefits do you believe 
might be available through such cooperation?
    Answer. Yes. The Ballistic Missile Defense Review outlined 
opportunities to partner with Russia to enhance overall missile defense 
security. Missile defense capabilities provide a mutually beneficial 
path to deter rogue nations and terrorist organizations from deploying 
and employing ballistic missiles. By cooperating with Russia, we can 
focus on the deterrence benefits that such capabilities provide and 
strengthen each nation's overall defensive capabilities without 
limiting either's national interests. I believe there is little 
political or defensive cost to pursuing such cooperation and much to be 
gained by doing so.
    Question. Do you believe that the United States is committed to the 
continued development of U.S. missile defense systems, including 
qualitative and quantitative improvements, should go forward without 
regard to Russian objections?
    Answer. It is my belief that the pace of our missile defense 
development should be based on how the threat develops in order to stay 
ahead of that threat. I believe there is great opportunity to work with 
the Russians, given our mutual concerns for the defense of our Nation's 
individual interests, while adequately addressing their concerns over 
the development of our defensive capability and capacity.
                 other military cooperation with russia
    Question. The United States and Russia are engaged in a variety of 
security cooperation efforts. Last year, the two nations conducted a 
joint exercise simulating a coordinated response to a hijacked aircraft 
crossing into our respective airspace, an exercise named ``Vigilant 
Eagle.''
    Do you believe such exercises and cooperative efforts enhance our 
security and, if confirmed, would you plan to continue such cooperation 
and other military-to-military contacts?
    Answer. Yes. I strongly believe cooperative exercises like Vigilant 
Eagle enhance national security, and if confirmed, I will fully support 
continuation and expansion of this type of military-to-military 
contact. Bilateral exercises enhance our security in a variety of ways 
and serve as a template for future exercise events. These efforts 
expand transparency and cooperation between NORAD and the Russian 
military, fostering shared understanding and mutual respect. From an 
operational perspective, these exercises serve a very real purpose by 
testing and validating procedures between NORAD and Russian Federation 
Air Force (RFAF) in the event of an airborne terrorist event (e.g., a 
hijacked aircraft that transits between the NORAD and RFAF Areas of 
Operations). If such an event would transpire, both NORAD and the 
Russian Federation will be much better prepared to deal with the 
emergency.
                         cruise missile defense
    Question. NORTHCOM and NORAD have responsibilities for warning and 
defending the United States against airborne threats, including cruise 
missiles.
    Relative to cruise missile defense, what do you believe should be 
the relationship between the Joint Integrated Air and Missile Defense 
Organization (JIAMDO) of the Joint Staff, on the one hand, and NORTHCOM 
and NORAD, on the other hand?
    Answer. I believe the work that the JIAMDO and NORAD and NORTHCOM 
are doing is inextricably linked. Previous commanders have developed a 
great working relationship with JIAMDO over the years and, if 
confirmed, I will continue to cultivate that partnership through our 
liaison officers and direct interaction at all levels.
    Question. Relative to the full spectrum of threats to the United 
States, how would you assess the cruise missile threat to the United 
States and its territories?
    Answer. I believe that although a cruise missile attack is 
possible, it is unlikely to occur from a nation state without 
significant indications, warnings, and a deterioration of 
relationships; I also believe terrorists will continue to focus on less 
technical and less expensive means to attack the United States. Based 
on that, I believe the threat of a cruise missile attack is low, but if 
confirmed, I will continue to pursue efforts to ensure we have a robust 
capability to defend against such attacks.
    Question. If confirmed, what capabilities would you prioritize to 
address this threat?
    Answer. If confirmed, I will consider numerous ongoing initiatives 
such as improvements to the Wide Area Surveillance network to meet 
cruise missile and other low altitude threats to North America. If 
confirmed, I would also continue to support ongoing efforts that the 
Services and interagency community are making to upgrade fighter 
aircraft and ground-based missile defense radars to detect and, if 
required, engage and destroy low radar-cross section and low altitude 
targets. In addition, if confirmed, I will emphasize the continued need 
for a rapidly-deployable integrated air and missile defense capability 
that can be used to protect national, high-interest security venues or 
critical infrastructure when required.
                        continental air defense
    Question. How has the continental air defense mission changed since 
the end of the Cold War and the events of September 11, 2001?
    Answer. Both the mission and threat have changed significantly. 
Prior to the end of the Cold War, and as recently as September 11, 
2001, NORAD was very much focused on looking to deter, detect, and 
defend against external threats approaching the United States and 
Canada from beyond our borders. However, since September 11, 2001, 
effectively executing the air defense mission now requires NORAD to 
look not only outward, but also within the borders of the United States 
and Canada to deter, detect, and defend against asymmetric threats 
originating from within our borders.
    Question. Do you believe that current U.S. continental air defense 
capabilities are adequate to meet national security needs?
    Answer. Yes. NORAD successfully defends the skies of the United 
States and Canada employing early warning radars, fighter aircraft, 
tanker aircraft, air/ground-based communication systems and ground-
based missile systems as required to maintain aerospace control of the 
U.S. and Canada. NORAD also maintains a close relationship with the 
interagency community, sharing a network of vital information and 
intelligence necessary to provide a common operating picture to support 
air-control and air-intercept missions. NORAD continues to evaluate and 
upgrade its air defense capabilities to defend against not only 
tradition airborne threats, but new and emerging airborne threats.
    Question. If confirmed, what capabilities and programs would you 
prioritize to address any identified deficiencies?
    Answer. If confirmed, I will review NORAD's air defense 
capabilities to assess their ability to meet national security needs. 
Should I identify any deficiencies, I will work with the Joint Staff 
and the Services to validate those requirements.
             maritime warning and maritime domain awareness
    Question. NORAD has gained the mission of Maritime Warning for 
North America. How does this mission fit into the larger Maritime 
Domain Awareness mission, and what role do you expect NORAD and 
NORTHCOM to have in Maritime Domain Awareness in the near term?
    Answer. It is my understanding that the NORAD Maritime Warning 
mission relies upon Maritime Domain Awareness to develop a 
comprehensive shared understanding of the maritime operational 
environment and to issue binational warnings of maritime threats or 
attacks against North America. The Commander of NORAD and NORTHCOM 
coordinates with adjacent geographic combatant commanders, U.S. 
Government partner agencies, adjacent nations, and the commercial/
private sector to further expand MDA in the NORAD Area of Operations 
and the NORTHCOM AOR through information sharing agreements, plans 
development, cooperative training, and acquisition of Maritime Domain 
Awareness sensors/tools.
    If confirmed, I will look into the efficacy of the current NORAD 
Maritime Warning mission and provide the committee my views on this 
after I have had the opportunity to look at this further.
                         arctic region mission
    Question. The 2011 UCP realigned the boundaries of combatant 
command AOR in the Arctic region. NORTHCOM's AOR now includes the 
Bering Strait and the North Pole. NORTHCOM was also tasked to become 
DOD's advocate for Arctic capabilities.
    What is the practical effect of this assignment, and how has it 
changed NORTHCOM planning and operations?
    Answer. The April 2011 UCP expands the roles and responsibilities 
of NORTHCOM by identifying NORTHCOM as the DOD advocate for Arctic 
capabilities. The UCP also identifies two combatant commands with 
distinct AOR in the Arctic: U.S. European Command and NORTHCOM. If 
confirmed, I look forward to reviewing and validating the NORTHCOM 
Commander's Estimate on the Arctic, which I understand is in the final 
stages of coordination.
    Question. What specific programs, if any, will you put in place if 
confirmed to identify and develop capabilities to protect and defend 
American sovereignty and interests in the Arctic region?
    Answer. If confirmed, I look forward to working with the 
Department, the interagency community, and international partners to 
examine what programs might be necessary to identify and develop 
capabilities needed to protect and defend our sovereignty.
                       law of the sea convention
    Question. Do you support U.S. accession to the Law of the Sea 
Convention? If so, please explain why.
    Answer. Yes, I believe that joining the Convention protects and 
advances a broad range of U.S. interests, including navigational 
mobility and offshore resources. The Convention would protect and 
advance U.S. interests, bolster our national security, secure U.S. 
rights over extensive marine areas, and give the United States a seat 
at the table when our vital interests are at stake.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, NORTHCOM, and 
Commander, NORAD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Begich
                               the arctic
    1. Senator Begich. Lieutenant General Jacoby, your predecessor, 
Admiral Winnefeld, was crafting a commander's estimate on the Arctic 
for use within the Department of Defense (DOD) and examining how U.S. 
Northern Command (NORTHCOM) can best support interagency partners in 
this region with search and rescue assets, humanitarian assistance, 
disaster response capabilities, and support to law enforcement. If 
confirmed, will you complete the estimate and what is the timeline for 
completion?
    General Jacoby. It is my understanding that the initial NORTHCOM 
Commander's Estimate is complete. However, it should be noted that the 
Estimate process is continuous so as to consider the operational 
environment, the nature of anticipated operations, and national and 
multinational strategic direction. The Estimate is currently being 
coordinated throughout the Department of Defense in anticipation of its 
presentation to the Secretary of Defense before the end of 2011. Once 
approved by the Secretary, NORTHCOM will socialize the Estimate with 
interagency partners, as well as with Canadian military and policy 
counterparts in early 2012, prior to being briefed on the Hill.

    2. Senator Begich. Lieutenant General Jacoby, Alaska needs to play 
a key role in these initiatives since it is the only U.S. State in the 
Arctic. The Armed Forces in Alaska are accustomed to the climate, 
distance, geography, and overall operating environment and have much to 
offer NORTHCOM and other agencies. How do you see Alaska fitting into 
NORTHCOM's support of interagency partners in the region?
    General Jacoby. If confirmed, a critical area I intend to study as 
part of NORTHCOM's ongoing Commander's Estimate for the Arctic is how 
Alaska fits into NORTHCOM's support of interagency partners. The 2011 
Unified Command Plan expanded the command's roles and responsibilities 
by identifying NORTHCOM as the DOD advocate for Arctic capabilities. We 
will continue to use the Arctic Estimate to help inform how we can best 
support the Department, our interagency partners, and international 
partners in order to advance security, safety, and stability in the 
Arctic region.

    3. Senator Begich. Lieutenant General Jacoby, have you considered 
sustaining Joint Task Force (JTF) Alaska as an entity for NORTHCOM to 
carry out support of agency partners in the Arctic? Why or why not?
    General Jacoby. If confirmed, I will support sustaining the JTF-AK 
Support Element as NORTHCOM's operational command and control 
headquarters for operations in Alaska and the Arctic. I understand 
Admiral Winnefeld realigned 12 positions (8 military and 4 civilian) 
from the NORTHCOM staff in Colorado Springs to the Support Element to 
perform planning and interagency coordination functions in Alaska. 
This, coupled with the matrixed support provided by U.S. Pacific 
Command's (PACOM) Alaskan Command, appears to be a manageable solution. 
However, if confirmed, as organizational efficiencies are investigated 
within the Department, I expect there will likely be continued 
assessment to determine the most appropriate command and control 
arrangement to support accomplishment of NORTHCOM missions in Alaska 
and the Arctic.

    4. Senator Begich. Lieutenant General Jacoby, 2008 saw a return of 
foreign flights on North American Aerospace Defense Command's (NORAD) 
northern areas. While the foreign aircraft have not violated U.S. or 
Canadian airspace, many of the flights are unannounced requiring a 
response from the fighters in the Alaska NORAD region. With continued 
activity and the growing interest in the Arctic, would you concur that 
sustaining the response resources--the F-22s--at Alaska NORAD region 
are of critical importance?
    General Jacoby. F-22s in Alaska enforce NORAD's Aerospace Control 
mission by conducting Air Defense and Air Sovereignty operations in the 
Alaskan NORAD Region. Part of the NORAD Aerospace Control mission 
includes identifying all air traffic entering North American airspace. 
Although indefinitely grounded at this time, when operational, F-22s 
provide advanced technological capabilities to track, intercept, and 
identify unknown aircraft in the Alaskan NORAD Region.

                       ballistic missile defense
    5. Senator Begich. Lieutenant General Jacoby, the 2010 Ballistic 
Missile Defense (BMD) Review set forth priorities for missile defense. 
One of the priorities is defending the Homeland against an 
intercontinental ballistic missile (ICBM) attack by continuing to 
sustain and modernize the Ground-based Midcourse Defense (GMD) system. 
Do you support the policy of ensuring our Homeland is protected from an 
ICBM attack by a rogue nation or non-state actor?
    General Jacoby. Yes. I support the policy of ensuring our Homeland 
is protected from an ICBM attack by a rogue nation or non-state actor 
following the priorities in the Ballistic Missile Defense Review 
(BMDR). The BMDR took a holistic view at the different aspects of the 
U.S. missile defense strategy and its programs and specified that 
homeland defense was top priority. The missile defense system now 
fielded protects our Homeland against ICBM attacks from rogue or non-
state actors.

    6. Senator Begich. Lieutenant General Jacoby, do you support 
continued modernization and sustainment of the GMD system in support of 
this policy?
    General Jacoby. Yes. The missile defense system that is now fielded 
protects our Homeland against ICBM attacks from rogue or non-state 
actors. I believe it is important to maintain this advantage by 
continuing to improve the GMD system and ensuring there are adequate 
capacity to counter limited threats as they evolve.

    7. Senator Begich. Lieutenant General Jacoby, do you support the 
current hedge strategy for Homeland defense which includes the 
completion of Missile Field 2 at Fort Greely for additional capacity 
and development of the two-stage interceptor?
    General Jacoby. Yes. The current strategy gives the Nation a 
critical hedge beyond the program of record to respond to unforeseen 
threats, both in terms of capability and capacity for Homeland defense.

    8. Senator Begich. Lieutenant General Jacoby, are you aware and 
supportive of the hedge strategy review that is currently underway to 
ensure risk is mitigated should the threat evolve sooner or more 
capable than anticipated?
    General Jacoby. Yes. As the Director for Strategic Plans and Policy 
on the Joint Staff, I have been very involved with the Office of the 
Secretary of Defense, the Missile Defense Agency (MDA), NORTHCOM, and 
U.S. Strategic Command (STRATCOM) in the hedge strategy review. I 
support the efforts of this review to mitigate risk should the threat 
evolve sooner or if the threat is more capable than anticipated.

    9. Senator Begich. Lieutenant General Jacoby, although the MDA is 
still reviewing the number of additional interceptors required, there 
is a need to enhance the ground-based interceptor (GBI) inventory to 
ensure there are adequate assets for testing and stockpile sustainment. 
Do you support the procurement of additional interceptors?
    General Jacoby. I believe it is prudent to continually reassess the 
number of GBIs we need as our capabilities and knowledge of potential 
threats mature. Based on the most recent threat assessment, it appears 
that the current number of 30 operational GBIs is sufficient.

    10. Senator Begich. Lieutenant General Jacoby, do you support 
increasing protection of the east coast against an ICBM attack by 
building an In-Flight Interceptor Communications System (IFICS) Data 
Terminal (IDT) at Fort Drum?
    General Jacoby. Yes. An east coast IFICS IDT will significantly 
enhance our ability to communicate with in-flight GBIs for protection 
of the east coast.

    11. Senator Begich. Lieutenant General Jacoby, are you confident 
the IDT is sufficient enough to protect the east coast from a limited 
ICBM?
    General Jacoby. Yes. Against today's threat, I believe an east 
coast IFICS IDT enhances our ability to communicate with in-flight GBIs 
for protection of the east coast.

    12. Senator Begich. Lieutenant General Jacoby, as the threat 
matures and if the nature of the attack becomes less limited, would the 
current GMD system still be sufficient enough to protect the east 
coast?
    General Jacoby. Today, the current GMD system provides protection 
for the east coast. With the addition of the east coast IFICS IDT, that 
capability is enhanced. As the threat matures, or if the nature of the 
threat becomes less limited, and as we gain better understanding of 
that threat, we will engage with the Department and with the MDA to 
ensure the Nation is postured to stay ahead of that threat.

    13. Senator Begich. Lieutenant General Jacoby, if confirmed, will 
you continue to assess and evaluate options for defending the east 
coast as the threat evolves?
    General Jacoby. Yes. If confirmed, I will continue to assess and 
evaluate options for defending the east coast and I will engage with 
the Department and with the MDA to ensure the Nation is postured to 
stay ahead of that threat.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                  national guard and northern command
    14. Senator Shaheen. Lieutenant General Jacoby, given the vital 
role the National Guard plays in NORTHCOM's operations, what benefits 
are there in having National Guard members in NORTHCOM's leadership 
positions and decisionmaking processes?
    General Jacoby. I understand that every day, there are close to 100 
National Guard soldiers and airmen supporting the NORTHCOM headquarters 
from as many as 20 States. This includes one three-star, two two-star, 
and three one-star National Guard officers who serve as the NORTHCOM 
Deputy Commander, subordinate commanders and direct advisors. I believe 
this allows the command to leverage National Guard expertise and 
experience in executing the full spectrum of homeland defense and civil 
support missions. The command also benefits from their understanding of 
National Guard policies and programs to ensure the command's planning 
and collaboration with National Guard forces are informed and 
effective.

                         state and local crises
    15. Senator Shaheen. Lieutenant General Jacoby, as you know well, 
NORTHCOM is charged with coordinating DOD resources with State/local 
first responders in the event of an attack or natural disaster. From my 
time as Governor, I know that all crises are local. It is critical that 
the Federal Government and NORTHCOM in particular reach out and develop 
relationships with State/local governments. Admiral Winnefeld had some 
important efforts with State Governors and National Guard units, but 
there is a lot that needs to be done to educate, understand, and 
partner with local cities and counties where appropriate. What 
specifically are your plans for working with State and local emergency 
responders?
    General Jacoby. I believe that developing great relationships and 
establishing open communications with state and local emergency 
managers prior to a crisis are essential to any successful disaster 
response operation. If confirmed, I will support recently-added 
initiatives to enhance communications, such as the stand-up of a 10-
person Regional Desk Office in HQ NORTHCOM to work closely with each of 
the 10 NORTHCOM Defense Coordinating Officers (DCOs), who are Federal 
military officers that work on developing relationships with State and 
local officials on a daily basis. I believe that focus on understanding 
both State and Federal mission partners' crisis management 
organizations, knowing their plans, and integrating the command's 
planning process with those of NORTHCOM's many mission partners is a 
vital component to ensure success. It is my understanding that NORTHCOM 
DCOs continue to hone DOD support options and work closely with Federal 
Emergency Management Agency (FEMA) regional planners and state 
officials in developing detailed response timelines to potential 
crises. For example, during the recent flooding along the Mississippi 
River in Louisiana, a NORTHCOM DCO team, in coordination with FEMA 
Region VI partners, helped State and local search and rescue officials 
develop a specific, all-domain rescue plan that incorporated 10 
Louisiana State agencies and 3 supporting Federal agencies. They also 
developed a Federal supporting plan that will be used during this 
year's hurricane season. I support continuing to develop these types of 
relationships with various State and local officials in close 
coordination with FEMA partners and the National Guard Bureau.

    16. Senator Shaheen. Lieutenant General Jacoby, how would you 
approach responding to a medium- to large-scale terrorist attack in a 
major U.S. city?
    General Jacoby. In the event of an attack, if confirmed, I would 
immediately begin posturing forces to respond to requests for 
assistance. As the Director for Strategic Plans and Policy on the Joint 
Staff, I have seen over the past 18 months that the DOD has taken 
significant steps to improve its ability to support civilian 
authorities in responding to catastrophic incidents in major 
metropolitan areas, particularly weapons of mass destruction attacks, 
but also major industrial accidents (such as the recent nuclear power 
plant disaster in Japan). Approximately 13,500 National Guard and Title 
10 forces are now ready to respond, growing to 18,000 by 1 October 
2012. These forces are trained and equipped to provide critical search 
and extraction, decontamination, emergency medical care, and medical 
evacuation in support of the Primary Federal Agency, the affected 
State, and local incident commanders. Many of these forces are on a 
very rapid response timeline and are prepared to deploy within hours in 
order to save lives and minimize human suffering within the critical 
initial 72 hours after an incident.

    17. Senator Shaheen. Lieutenant General Jacoby, in the event of an 
attack, how do you envision your role and the chain of command?
    General Jacoby. In the event of a maritime or land attack on the 
U.S. Homeland, the Commander, NORTHCOM, would command and control Title 
10 forces responding to the event, as directed by the President or the 
Secretary of Defense. In the event of an air attack on the U.S. 
Homeland, Commander, NORAD, would command and control title 10 fighter 
aircraft and land-based air defense capabilities as directed by the 
President or Secretary of Defense.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                                 cyber
    18. Senator McCain. Lieutenant General Jacoby, as I mentioned in my 
opening remarks, more must be done both here in Congress and across the 
executive branch on addressing the threats we face in the cyber domain. 
The recent findings from the Government Accountability Office (GAO) 
highlight some key areas that must be addressed. According to GAO, 
``DOD's organization to address cyber security threats is decentralized 
and spread across various offices, commands, Military Services, and 
military agencies,'' and that the ``supporting relationships necessary 
to achieve command and control of cyberspace operations remain 
unclear.'' Do you agree with GAO's assessment?
    General Jacoby. I believe that the support relationships which are 
necessary to achieve command and control of cyberspace operations still 
need some clarity. However, it is my understanding that details of 
Cyber Command (CYBERCOM) and control are being worked and senior-level 
discussions should clarify DOD direction in the near-term. The stand-up 
of CYBERCOM demonstrates DOD's commitment to clearly lay out this 
complex mission and establish proper command and support relationships 
to succeed in the cyber environment.

    19. Senator McCain. Lieutenant General Jacoby, do you believe that 
NORTHCOM's role in support of a cyber attack is well defined and that 
the mechanisms exist for NORTHCOM, STRATCOM, and CYBERCOM to all 
operate in concert with the Department of Homeland Security (DHS) in 
the event of a serious domestic cyber attack?
    General Jacoby. I believe NORTHCOM's support role in the event of a 
serious domestic cyber attack is primarily to respond to second and 
third order physical effects in a ``response and recovery'' mode 
supporting civil authorities. This would likely involve supporting the 
DHS in a Defense Support of Civil Authorities (DSCA) role, utilizing 
the existing DSCA process, which also applies to the support provided 
by STRATCOM/CYBERCOM. I understand NORTHCOM has a good relationship 
with CYBERCOM via its liaison officer and daily collaboration through 
NORTHCOM's Theater Network Control Center and Network Operations 
Security Center. Further, NORTHCOM coordinates and collaborates with 
CYBERCOM in its situational awareness, planning, and exercises. 
Finally, NORTHCOM has included the DHS, STRATCOM, and CYBERCOM in a 
series of mission analysis and table-top exercises to build 
professional relationships and explore roles and responsibilities in 
cyberspace for both homeland defense and DSCA missions.

    20. Senator McCain. Lieutenant General Jacoby, in your answers to 
the committee's advance policy questions, you indicate that NORTHCOM's 
responsibility extends to defense of physical assets in the event of a 
cyber attack. Does that mean NORTHCOM helps put the fires out and picks 
up the pieces when the attack is over, or does NORTHCOM have the means 
and authority to defend against and respond to a cyber attack that 
results in physical damage to assets inside the United States?
    General Jacoby. Depending on the nature of a cyber attack, it is my 
understanding that NORTHCOM would most likely coordinate transportation 
and other physical recovery support using the capacities that we have 
as a military. Eighty-five percent of the cyber infrastructure that DOD 
and civil authorities use is owned by the private sector, which is 
largely responsible for its maintenance and protection. DHS, in 
partnership with other Federal Departments and Agencies; State, local, 
tribal and territorial governments; the private sector; and 
international partners, will manage and lead a fully coordinated 
response to a significant cyber incident to minimize impact, restore 
operations, and reduce the risk of future occurrence of the event or 
events. In accordance with a Memorandum of Agreement signed in 2010 by 
Secretary Gates and Secretary Napolitano, such a request would likely 
be directed to STRATCOM, with expertise provided by their subordinate 
command, CYBERCOM. As a supporting command, NORTHCOM will provide full 
support to STRATCOM's efforts.

    21. Senator McCain. Lieutenant General Jacoby, after the release of 
the DOD cyber security strategy last week, General Cartwright, the Vice 
Chairman of the Joint Chiefs of Staff, stated that DOD is spending 90 
percent of its time playing defense against cyber attacks and 10 
percent playing offense and that DOD should invert this defense/offense 
ratio to assert that there will be consequences to a cyber attack 
against the United States. Do you agree with General Cartwright's 
statements?
    General Jacoby. I believe cyber operations that are entirely 
passive and defensive will fail and that we cannot simply hunker down 
in a defensive mode and wait for things to happen. That said, defensive 
measures must be continually evaluated and improved to keep up with the 
rapidly evolving threats we face, so understandably there may currently 
be an imbalance between defensive and offensive cyber operations. Cyber 
is a relatively new domain, thus more analysis is needed before the 
Department decides on a way ahead on balance of offensive/defensive 
cyber operations.

    22. Senator McCain. Lieutenant General Jacoby, what do you view as 
the appropriate direction DOD should be headed with respect to cyber 
strategy?
    General Jacoby. The DOD understands the importance of cyber, which 
is why it stood up CYBERCOM to focus the Department's efforts in 
operating and defending the Global Information Grid. The DOD has some 
of the brightest and most dedicated professionals working the 
challenges of operating in cyberspace, and I believe the underpinning 
for success will be the partnerships established throughout the U.S. 
Government, private sector, and internationally. Additionally, I 
believe it is essential that our military make command and control in 
cyberspace more responsive by developing policy, doctrine, and 
authorities to support combatant commander requirements.

    23. Senator McCain. Lieutenant General Jacoby, do you view this as 
a matter of urgency?
    General Jacoby. Absolutely. I believe the cyber security threat is 
one of the most serious national security, public safety, and economic 
challenges the Department faces. A whole-of-government approach is 
vital to address cyber threats across the DOD and the public and 
private sectors.

                              budget cuts
    24. Senator McCain. Lieutenant General Jacoby, on Tuesday, General 
Dempsey stated that the President's proposed cut of $400 billion from 
defense spending over the next 12 years will be difficult to implement. 
He went on to say that recent calls for cuts of $800 billion or greater 
would be extraordinarily difficult and very high risk. Do you agree 
with General Dempsey that proposed cuts to defense of the magnitude 
being discussed will be of very high risk to our military capabilities?
    General Jacoby. I agree with General Dempsey's statement that 
reductions of this magnitude would be difficult to implement, 
particularly as we strive to minimize risk and ensure a continuing 
strong national defense. But, as we look strategically at the fiscal 
landscape, we should realize that reductions are in fact necessary and 
that we, in the Department of Defense, must do our part. The key is how 
we approach these reductions. I think a general reduction across all 
accounts would be inefficient. We need a continuation of the targeted 
reductions started under Secretaries Gates and Panetta to reach the 
$400 billion plateau. To go beyond this level, however, could cause 
serious readiness issues.

    25. Senator McCain. Lieutenant General Jacoby, do you believe the 
impact of such cuts would significantly degrade the readiness of our 
Armed Forces?
    General Jacoby. I believe we can minimize negative impacts with 
targeted reductions, focusing on areas where some additional risk could 
be assumed, of course depending on the level of cuts. At any level of 
cuts, I believe across-the-board reductions would be an inefficient way 
to proceed and more likely result in significant degradation to 
readiness.

    26. Senator McCain. Lieutenant General Jacoby, I understand from 
comments by General Dempsey earlier this week that DOD is in the 
process of analyzing the President's proposed $400 billion in cuts to 
defense and will develop commensurate military strategy. Do you believe 
we should develop a military strategy first and then formulate a budget 
to accomplish such a strategy, not the other way around?
    General Jacoby. We certainly need to be cognizant of both as we 
proceed, however, I believe we should focus principally on driving 
program and budget decisions from choices about strategy and risks. 
Such an approach is essential to ensure preservation of a superb 
defense force to meet national security goals, even given the existing 
fiscal environment.

                              afghanistan
    27. Senator McCain. Lieutenant General Jacoby, I believe your time 
commanding soldiers in Afghanistan in 2004 and your recent tour as 
Commander of Multi-National Corps-Iraq provides you with a unique 
perspective on our current engagements in both countries. On 
Afghanistan, do you believe the surge of forces has led to an improved 
security situation that is placing enormous pressure on the Taliban and 
affiliated groups?
    General Jacoby. Yes, I believe significant advances in Afghanistan 
have been made due to the surge of forces. The increased number of 
forces allowed the DOD to establish security in areas of importance to 
the insurgency such as Central Helmand and Kandahar. In addition, the 
surge allowed the Afghan National Security Force to expand their 
capacity, capability and control of Afghanistan. Most importantly, I 
believe the surge was a major factor in halting Afghanistan's potential 
regression into a refuge and training location for al Qaeda.

    28. Senator McCain. Lieutenant General Jacoby, do you believe that 
withdrawing these 33,000 U.S. forces by next summer places additional 
risk on our soldiers and our mission?
    General Jacoby. I agree with the theater and combatant commanders 
that we can drawdown, while continuing to mitigate risk given current 
circumstances. However, I believe there should be a continual 
assessment of situation to make adjustments if conditions on the ground 
deteriorate.

    29. Senator McCain. Lieutenant General Jacoby, do you believe, as 
it was reported yesterday in the Washington Post, that we are within 
reach of rendering al Qaeda incapable of launching large-scale attacks 
against the Homeland of the United States like we experienced on 
September 11? If so, what should we do to finish the job?
    General Jacoby. I believe al Qaeda is a dangerous threat that 
remains focused on attacking the United States and our interests 
abroad. I also believe that the death of Osama Bin Laden and the 
success of our Nation's counterterrorism campaign in the Afghanistan-
Pakistan border region provide an opportunity to strike a blow to al 
Qaeda ability to conduct complex attacks on the United States. To 
defeat al Qaeda and prevent its return, we should continue to 
aggressively pursue our worldwide counterterrorism strategy.

                                  iraq
    30. Senator McCain. Lieutenant General Jacoby, if requested by the 
Iraqis, do you believe the United States should maintain a residual 
presence of military personnel in country?
    General Jacoby. I believe the United States should consider 
providing limited assistance to fill anticipated gaps in Iraqi Security 
Forces' capabilities, should the Government of Iraq request such 
support.

    31. Senator McCain. Lieutenant General Jacoby, what do you believe 
would be a sufficient number of U.S. military personnel to assist in 
maintaining security in a number of key areas, such as Mosul?
    General Jacoby. The Commander, U.S. Forces-Iraq determines U.S. 
military force requirements for security operations in Iraq. As such, I 
defer to General Lloyd J. Austin III for specifics regarding force 
structure in Iraq.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                         budgetary constraints
    32. Senator Ayotte. Lieutenant General Jacoby, as Director for 
Strategic Plans and Policy, you are responsible for overseeing DOD's 
contingency plans. Please explain, generally and in an unclassified 
way, how $400 billion or even an $800 billion cut in defense over the 
next decade would impact DOD's ability to carry out these contingency 
plans that are essential to our national security?
    General Jacoby. As part of our ongoing Comprehensive Defense 
Review, we are assessing how defense cuts of $400 billion would impact 
the DOD's ability to carry out contingency plans. At the unclassified 
level, I can tell you that defense cuts would impact the concurrency 
with which the joint force is able to execute contingency plans. For 
example, as we reduce the joint force's capacity, we will also reduce 
the range of options available for the President, especially once the 
joint force is committed somewhere. This reduction of capacity covers 
the entire spectrum of missions in the Quadrennial Defense Review, 
including, conventional and strategic deterrence, countering terrorism, 
conducting counter-insurgency and stability operations, helping to 
build the capacity and commitment of our allies and partners, and DSCA. 
We are also examining the impact of further cuts in the Defense budget 
as to the level of risk in executing our plans, as well as our ability 
to conduct other operations and deter in other theaters. We have not 
initiated planning to defense cuts of up to $800 billion, but suffice 
to say that as $400 billion cuts will elevate risk in many areas, 
deeper cuts could pose an unacceptable risk to achieve our strategic 
security objectives.

                        threats to the homeland
    33. Senator Ayotte. Lieutenant General Jacoby, as Commander of 
NORTHCOM, you will be responsible for helping defend the people and 
territory of the United States against threats to our Homeland. Based 
on your nomination to serve as the Commander of NORTHCOM, as well as 
your current position as Director of Strategic Plans and Policy on the 
Joint Staff, what do you believe are the greatest threats to the 
Homeland and the people of the United States?
    General Jacoby. [Deleted.]

    34. Senator Ayotte. Lieutenant General Jacoby, do you believe that 
al Qaeda affiliated groups, such as al Qaeda in the Arabian Peninsula, 
continue to constitute one of the most serious threats to Americans and 
the U.S. Homeland?
    General Jacoby. [Deleted.]

    35. Senator Ayotte. Lieutenant General Jacoby, in your professional 
military judgment, does it make sense to bring terrorists captured 
overseas by our military, in accordance with the law of war, to U.S. 
soil where they could ultimately be released into local populations?
    General Jacoby. I believe that the U.S. Government has the 
capability to detain captured international terrorists, either within 
or outside the United States. I do not believe that any captured 
terrorist would be released into a community in this country.
                                 ______
                                 
    [The nomination reference of LTG Charles H. Jacoby, Jr., 
USA, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 25, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General

    LTG Charles H. Jacoby, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of LTG Charles H. Jacoby, Jr., 
USA, which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of LTG Charles H. Jacoby, Jr., USA
Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy - BS - No Major
    University of Michigan - MA - History
    U.S. Army Command and General Staff College - MMAS - Military Art 
and Sciences
    National Defense University - MS - National Security and Strategic 
Studies

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    School of Advanced Military Studies
    National War College

Foreign language(s): Spanish

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  7 June 78
1LT.......................................  7 June 80
CPT.......................................  1 Jan. 82
MAJ.......................................  1 July 89
LTC.......................................  1 July 93
COL.......................................  1 June 98
BG........................................  1 July 02
MG........................................  14 Nov. 05
LTG.......................................  31 May 07
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Dec. 78.........................  Oct. 80...........  Rifle Platoon
                                                       Leader, C
                                                       Company, 1st
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Oct. 80.........................  Feb. 81...........  Scout Platoon
                                                       Leader, 1st
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division. Fort
                                                       Bragg, NC
Feb. 81.........................  Aug. 81...........  S-3 (Air), 1st
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Sep. 81.........................  Aug. 82...........  Aide-de-Camp to
                                                       the Commanding
                                                       General. Joint
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, NC
Aug. 82.........................  Dec. 83...........  Commander, A
                                                       Company, 2d
                                                       Battalion
                                                       (Airborne), 325th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, and
                                                       Operation Urgent
                                                       Fury, Grenada
Jan. 84.........................  July 84...........  Student, Infantry
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Infantry School,
                                                       Fort Benning, GA
Aug. 84.........................  May 86............  Student,
                                                       Department of
                                                       History,
                                                       University of
                                                       Michigan, Ann
                                                       Arbor, MI
May 86..........................  May 89............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       History, U.S.
                                                       Military Academy,
                                                       West Point, NY
July 89.........................  May 91............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
June 91.........................  Jan. 92...........  Chief, G-3
                                                       (Operations),
                                                       25th Infantry
                                                       Division (Light),
                                                       Schofield
                                                       Barracks. HI
Feb. 92.........................  June 93...........  S-3 (Operations),
                                                       1st Brigade, 25th
                                                       Infantry Division
                                                       (Light),
                                                       Schofield
                                                       Barracks, HI
June 93.........................  Oct. 93...........  Chief, G-3
                                                       (External
                                                       Evaluation
                                                       Branch). 25th
                                                       Infantry Division
                                                       (Light),
                                                       Schofield
                                                       Barracks. HI
Oct. 93.........................  Oct. 95...........  Commander, 1st
                                                       Battalion, 504th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Oct. 95.........................  Aug. 96...........  Staff Action
                                                       Officer,
                                                       Congressional
                                                       Activities
                                                       Division,
                                                       Management
                                                       Directorate,
                                                       Office of the
                                                       Chief of Staff,
                                                       U.S. Army,
                                                       Washington, DC
Aug. 96.........................  June 97...........  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC
June 97.........................  Oct. 97...........  Student, Spanish
                                                       Language
                                                       Training, Defense
                                                       Language
                                                       Institute-
                                                       Washington
                                                       Office,
                                                       Washington, DC
Nov. 97.........................  Feb. 99...........  Commander, Joint
                                                       Task Force-Bravo,
                                                       U.S. Southern
                                                       Command, Honduras
Feb. 99.........................  Nov. 00...........  Deputy Chief of
                                                       Staff, later
                                                       Executive Officer
                                                       to the Commander
                                                       in Chief, U.S.
                                                       Southern Command,
                                                       Miami, FL
Nov. 00.........................  July 02...........  Deputy Director
                                                       for Global/
                                                       Multilateral
                                                       Issues/
                                                       International-
                                                       American Affairs,
                                                       J-5, The Joint
                                                       Staff,
                                                       Washington, DC
July 02.........................  Mar. 04...........  Assistant Division
                                                       Commander
                                                       (Operations),
                                                       later Assistant
                                                       Division
                                                       Commander
                                                       (Support), 25th
                                                       Infantry Division
                                                       (Light),
                                                       Schofield
                                                       Barracks, HI
Mar. 04.........................  Mar. 05...........  Assistant Division
                                                       Commander
                                                       (Support), 25th
                                                       Infantry Division
                                                       (Light)/Combined
                                                       Joint Task Force-
                                                       76, Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Mar. 05.........................  June 05...........  Assistant Division
                                                       Commander
                                                       (Support), 25th
                                                       Infantry Division
                                                       (Light),
                                                       Schofield
                                                       Barracks, HI
July 05.........................  May 07............  Commanding
                                                       General, U.S.
                                                       Army Alaska/
                                                       Deputy Commander,
                                                       U.S. Alaskan
                                                       Command, Fort
                                                       Richardson, AK
May 07..........................  June 10...........  Commanding
                                                       General, I Corps
                                                       and Fort Lewis,
                                                       Fort Lewis, WA
Apr. 09.........................  Dec. 09...........  Commanding
                                                       General, I Corps
                                                       and Fort Lewis/
                                                       Multi-National
                                                       Corps-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Jan. 10.........................  Mar. 10...........  Commanding
                                                       General, I Corps
                                                       and Fort Lewis/
                                                       Deputy Commander
                                                       for Operations,
                                                       U.S. Forces-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Mar. 10.........................  June 10...........  Commanding
                                                       General, I Corps
                                                       and Fort Lewis,
                                                       Fort Lewis, WA
June 10.........................  Present...........  Director,
                                                       Strategic Plans
                                                       and Policy, J-5,
                                                       The Joint Staff/
                                                       Senior Member,
                                                       U.S. Delegation
                                                       to the United
                                                       Nations Military
                                                       Staff Committee,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignments                    Date               Grade
------------------------------------------------------------------------
Commander, Joint Task Force-         Nov. 97-Feb. 99                   Colonel
 Bravo, U.S. Southern Command,
 Honduras........................
Deputy Chief of Staff, later         Feb. 99-Nov. 00                   Colonel
 Executive Officer to the
 Commander in Chief, U.S.
 Southern Command, Miami, FL.....
Deputy Director for Global/          Nov. 00-July 02                   Colonel/Brigadier
 Multilateral Issues/                                           General
 International-American Affairs,
 J-5, The Joint Staff,
 Washington, DC..................
Assistant Division Commander         Mar. 04-Mar. 05  Brigadier General
 (Support), 25th Infantry
 Division (Light)/Combined Joint
 Task Force-76, Operation
 Enduring Freedom, Afghanistan...
Commanding General, I Corps and      Apr. 09-Dec. 09  Lieutenant General
 Fort Lewis/Multi-National Corps-
 Iraq, Operation Iraqi Freedom,
 Iraq............................
Commanding General, I Corps and      Jan. 10-Mar. 10  Lieutenant General
 Fort Lewis/Deputy Commander for
 Operations, U.S. Forces-Iraq,
 Operation Iraqi Freedom, Iraq...
Director, Strategic Plans and        June 10-Present  Lieutenant General
 Policy, J-5, The Joint Staff/
 Senior Member, U.S. Delegation
 to the United Nations Military
 Staff Committee, Washington, DC.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
           Assignments                    Date               Grade
------------------------------------------------------------------------
Commander, A Company, 2d             Aug. 83-Dec. 83                   Captain
 Battalion (Airborne), 325th
 Infantry, 82d Airborne Division,
 Operation Urgent Fury, Grenada..
Assistant Division Commander         Mar. 04-Mar. 05  Brigadier General
 (Support), 25th Infantry
 Division (Light)/Combined Joint
 Task Force-76, Operation
 Enduring Freedom, Afghanistan...
Commanding General, I Corps and      Apr. 09-Dec. 09  Lieutenant General
 Fort Lewis/Multi-National Corps-
 Iraq, Operation Iraqi Freedom,
 Iraq............................
Commanding General, I Corps and      Jan. 10-Mar. 10  Lieutenant General
 Fort Lewis/Deputy Commander for
 Operations, U.S. Forces-Iraq,
 Operation Iraqi Freedom, Iraq...
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal (with two Oak Leaf Clusters)
    Legion of Merit
    Bronze Star Medal (with Oak Leaf Cluster)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with five Oak Leaf Clusters)
    Joint Service Commendation Medal (with Oak Leaf Cluster)
    Army Commendation Medal (with four Oak Leaf Clusters)
    Army Achievement Medal (with two Oak Leaf Clusters)
    Combat Infantryman Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Charles H. 
Jacoby, Jr., USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles H. Jacoby, Jr.

    2. Position to which nominated:
    Commander, Northern Command/North American Aerospace Defense 
Command, Peterson Air Force Base, CO.

    3. Date of nomination:
    July 25, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 19, 1954; Detroit, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Grace A. Dorta.

    7. Names and ages of children:
    Charles H. Jacoby III, age 20.
    Victor D. Jacoby, age 16.
    Michael C. Jacoby, age 13.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Limited partnership in a family LLC. Jacoby Land & Timber, LCC.
    Managing partner, Robert Jacoby, Brother).

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army (AUSA).
    Association of Graduates, U.S. Military Academy.
    Council on Foreign Relations.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power.
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Charles H. Jacoby, Jr.
    This 21st day of July, 2011.

    [The nomination of LTG Charles H. Jacoby, Jr., USA, was 
reported to the Senate by Chairman Levin on August 2, 2011, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2011.]


 NOMINATION OF HON. ASHTON B. CARTER TO BE DEPUTY SECRETARY OF DEFENSE

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Nelson, McCaskill, Hagan, Begich, Shaheen, Blumenthal, McCain, 
Inhofe, Sessions, Wicker, Brown, Portman, Ayotte, Graham, and 
Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Jessica L. Kingston, research assistant; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; William 
G.P. Monahan, counsel; Robie I. Samanta Roy, professional staff 
member; Russell L. Shaffer, counsel; and William K. Sutey, 
professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Pablo E. Carrillo, minority investigative counsel; Paul C. 
Hutton IV, professional staff member; Daniel A. Lerner, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Michael J. Sistak, research assistant; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Kathleen A. Kulenkampff, Hannah 
I. Lloyd, and Bradley S. Watson.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon Peterson, assistant 
to Senator Webb; Maria Mahler-Haug, assistant to Senator 
McCaskill; Roger Pena, assistant to Senator Hagan; Lindsay 
Kavanaugh, assistant to Senator Begich; Brooke Jamison, 
assistant to Senator Gillibrand; Ethan Saxon, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Joseph 
Lai, assistant to Senator Wicker; Charles Prosch, assistant to 
Senator Brown; Brad Bowman, assistant to Senator Ayotte; 
Matthew Rimkunas and Sergio Sarkany, assistants to Senator 
Graham; and Joshua Hodges, assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. This morning the committee meets to 
consider the nomination of Ashton Carter to be Deputy Secretary 
of Defense. We welcome the nominee and his family to today's 
hearing. We appreciate the long hours and other sacrifices that 
our nominees make to serve their country, and we know that 
these sacrifices would not be possible without the support of 
their families.
    Senator Lieberman, who is going to be introducing Dr. 
Carter this morning, needs to chair another committee meeting. 
I know that firsthand because I'm supposed to be there later 
myself. In any event, what we're going to do now is call upon 
Chairman Lieberman, Senator Lieberman, who's a member of this 
committee, as well, to introduce our nominee, and then we'll 
come back to the opening statements. I've consulted with 
Senator McCain and he's perfectly happy to do it that way.
    Senator Lieberman.

 STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Lieberman. Thank you very much for your courtesy, 
Mr. Chairman, and for your skill at overcoming the obvious 
irascible reluctance of Senator McCain to allow me to speak 
first.
    Chairman Levin. He's a soft touch. [Laughter.]
    Senator Lieberman. I am really grateful for the opportunity 
to appear before you now, not from my customary seat, in order 
to introduce Dr. Ash Carter, the President's nominee to be our 
30th Deputy Secretary of Defense. Just slightly more than 2 
years ago, I had the privilege of introducing and supporting 
Ash's nomination as Under Secretary of Defense for Acquisition, 
Technology, and Logistics. After that hearing, this committee 
in its wisdom endorsed the nomination, approved it by voice 
vote, and then the Senate did the same. I think we have some 
momentum going here.
    If anything, over the last 2 years I think Ash Carter has 
strengthened his case, the case for him to assume at this 
particular time this extraordinary position. I've known Ash for 
years and we've become personal friends, both during his time 
serving in the Defense Department under Bill Perry during the 
Clinton administration and now.
    We've also had the opportunity to travel under the esteemed 
leadership of Senator McCain, with me in a supporting role, to 
the security conference in Munich every February, and it's been 
a great opportunity to get to know him both as a person and a 
public official.
    His resume is quite impressive. I'll just state some of the 
highlights for you. He has, unusually, a Ph.D. in theoretical 
physics, has been a professor of international relations, 
security, and science and, going back to the Clinton 
administration, served as Assistant Secretary of Defense for 
International Security Policy.
    Since then he's also served during the Bush administration 
on the Defense Science Board and the Defense Policy Board, and 
is widely recognized and respected, I think on a bipartisan 
basis, as one of our country's leading thinkers and leaders, 
actors, on defense and national security issues.
    For the last 2 years, as I've mentioned, Ash has served as 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics. In this position he has overseen billion-dollar 
military programs and procurement of critical equipment for our 
men and women in the Armed Forces. In this job, as so many 
others, I believe he has truly distinguished himself.
    Of particular note, Ash has played a pivotal role in 
getting 6,500 mine resistant ambush protected (MRAP) all-
terrain vehicles to our troops in Afghanistan at really 
breakneck speed. Of course, we all know that these vehicles 
have saved countless lives. The success of the program I think 
speaks to Ash's fierce dedication to our men and women on the 
front lines, but also to the importance of the acquisition 
programs delivering equipment our troops need in a way that is 
not only timely, but cost effective.
    When and I hope, of course, if Ash is confirmed, he will 
assume his new responsibilities at a time when the Pentagon 
faces the prospect of what I would call extreme, draconian 
budget cuts, so severe that Secretary of Defense Panetta has 
warned that they could, ``hollow out the force and weaken our 
national defense.'' Of course, I totally agree and I know many 
members on both sides of the aisle on this committee agree.
    In the face of this danger, I think Ash's considerable 
talents, his experience, his skill as an advocate, will be more 
necessary than ever. I have great confidence that he will work 
ceaselessly, first to make sure that every dollar entrusted to 
our Department of Defense (DOD) is used as efficiently and 
effectively as possible, but also that he will be a determined 
advocate for the programs and the funding that are needed to 
ensure that our military stays what it is today, the best in 
the world, and that our Nation therefore, at a time when the 
world remains dangerous and unpredictable, remains as secure 
and free as we all want it to be.
    Mr. Chairman, Senator McCain, I thank you again for your 
courtesy and I am proud to offer my wholehearted endorsement 
for this nomination and hope that my colleagues will give him 
the same unanimous support that he received the last time he 
appeared before the committee.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator Lieberman.
    We just heard from Senator Lieberman and his support for 
you, and much about your record, your career. I think most of 
us, perhaps all, are familiar with your distinguished record of 
public service culminated in your current position as Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics. If you're confirmed as Deputy Secretary, you're 
going to be the number two official in DOD, and in that 
capacity you're going to play a key role in determining how our 
country addresses an extraordinarily complex set of challenges 
that face our Armed Forces.
    For example, how can we reduce the stress of repeated 
deployments on our men and women in uniform and their families 
after 10 years of non-stop military operations in Iraq and 
Afghanistan? How will we complete the drawdown of U.S. forces 
in Iraq, and what continuing role, if any, is the U.S. military 
willing to play after the December 31 withdrawal deadline if 
there is a request from Iraq? How can we most effectively 
contribute to the success of the mission in Afghanistan by 
keeping the focus on transitioning security responsibility to 
Afghan forces, including continuing the drawdown of U.S. forces 
in that country?
    How can we reduce our force posture around the world to 
bring down the huge costs we're facing, while at the same time 
maintaining a strong forward presence in key areas?
    At the same time all that's on your plate, the next Deputy 
Secretary is going to play a key role in implementing ongoing 
efficiencies initiatives and achieving the additional savings 
that are needed in the current fiscal climate. Last year then-
Secretary Gates approved roughly $180 billion in cuts to 
defense programs over the Future Years Defense Program. The 
recent legislation on the debt ceiling calls for an additional 
$400 billion in reductions in security spending over a 10-year 
period, with the possibility of far deeper cuts if the joint 
committee is unable to reach agreement and a sequester is 
triggered.
    Now, just the reductions required so far, required by the 
legislation on the debt ceiling, just those reductions are 
going to require an extremely careful review of every program 
and expenditure in the defense budget and tough decisions to be 
made to balance the requirements of today's force and current 
military missions against investment in needed preparations for 
the threats of tomorrow.
    I know that Dr. Carter agrees that DOD budget reductions 
must contribute to overall deficit reduction, but must do so 
without compromising our current or our future security. Unless 
we impose much greater discipline on our acquisition process 
and unless we bring down the costs of our weapons programs, we 
are unlikely to achieve that objective.
    Finally, the Deputy Secretary has traditionally handled a 
wide array of management duties, a role that was enhanced by 
recent legislation formally designating the Deputy Secretary as 
Chief Management Officer of DOD. Virtually every area of DOD 
management is included in the annual list that we get of high 
risk areas prepared by the Government Accountability Office. 
Those high risk areas have not changed much over the years.
    Dr. Carter, as Deputy Secretary you're going to be 
responsible for addressing each of those high risk problem 
areas, including: DOD business transformation, DOD business 
systems modernization, DOD support infrastructure management, 
DOD financial management, DOD supply chain management, DOD 
weapons systems acquisition, DOD contract management, 
management of interagency contracting, strategic human capital 
management, and management of real property.
    Dr. Carter has demonstrated in his current position that he 
can be a strong manager and a decisive leader. We particularly 
appreciate the efforts that you have made to implement the 
Weapons System Acquisition Reform Act (WSARA), the Better 
Buying Power Initiative, and to begin the process of bringing 
some of our largest acquisition programs under control.
    Now, I emphasize that you've helped to begin the process of 
bringing some of our largest acquisition programs under 
control, but we have a long way to go. Secretary Carter in his 
new capacity is going to need to speed up the process to help 
that speed-up effort, to speed up the process of controlling 
costs of acquisition.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Dr. Carter, thank you for your service as Under Secretary 
of State for Acquisition, Technology, and Logistics and for 
your willingness to continue to serve as the Deputy Secretary 
of Defense. Your willingness and ability to bear the burden of 
senior leadership is both noteworthy and highly commendable.
    The position of Deputy Secretary of Defense is as 
challenging today as it's ever been. On the one hand, the 
Department is being confronted by daunting challenges to its 
ability to ensure the Nation's defense. On the other hand, 
there's the specter of dramatic cuts in defense spending. 
Against that backdrop, the Department must find ways to operate 
more efficiently and effectively than ever before. If confirmed 
as Deputy Secretary of Defense, you must be prepared to lead 
both these efforts and succeed in doing so.
    Providing for our national defense is the most important 
responsibility that our or any government has. It's our 
Nation's insurance policy. In a world that is more complex and 
threatening as I have ever seen, we cannot allow arbitrary 
budget arithmetic to drive our defense strategy and spending. 
Some of the defense cuts being discussed would do grave harm to 
our military and our Nation's security. Defense spending is not 
what is sinking this country into fiscal crisis and if Congress 
and the President act on that flawed assumption they will 
create a situation that is truly unaffordable, the decline of 
U.S. military power.
    Do not misunderstand me. Real defense cuts are coming and 
for that reason it's now more essential than ever for DOD to 
efficiently manage the taxpayers' money. But I will be blunt. 
This will require not just good leadership; it will require a 
change in culture at DOD. By that I mean an end to the 
Department's systemic tendency to spend the taxpayers' money in 
a manner that is far too often disconnected from what the 
warfighter actually needs and what is in the taxpayers' best 
interests.
    Particularly over the last 10 years, senior defense 
management has been inclined to lose sight of affordability as 
a goal and has just reached for more money as a solution to 
most problems. Today I see evidence of this cultural problem 
all too frequently and it must be changed.
    Every few weeks I get reports about huge cost overruns on 
the Pentagon's biggest weapons programs, like the recent 
projection of a $1.1 billion overrun in the cost of the first 
28 production-quality jets in the Joint Strike Fighter (JSF) 
program, a program that is now in its 10th year of development 
and the recipient of about $56 billion of taxpayer investment 
to date. Or, the estimated $560 million estimated cost 
overruns, or roughly 11 percent growth in cost, in the program 
to build the USS Gerald Ford.
    Then, there are the Defense Department's recent 
reprogramming requests. Four times over the last 2 months, the 
Department has asked this committee to let it shift a total of 
over $10 billion amongst its spending accounts. In doing so, it 
asks only the chairman and ranking members of the defense 
committees in the Senate and the House of Representatives to 
let it reallocate billions of dollars to, among other things, 
pay hundreds of millions of dollars for the cost overrun in the 
JSF program and provide authority to start dozens of new 
programs never before presented to Congress.
    Authorizing funding in this way, outside of regular order, 
subverts transparent congressional oversight, undermines 
accountability in how defense programs are managed, and 
actually encourages underperformance.
    Just a few days ago, the Bipartisan Commission on Wartime 
Contracting reported that at least $30 billion has been wasted 
on ill-conceived and poorly overseen contracts and grants in 
Iraq and Afghanistan. Earlier this year, a study of Army 
procurement showed that between $3.3 billion and $3.8 billion 
had been wasted by the Army every year since 2004 in developing 
new weapons programs that were cancelled without providing any 
new capability to the troops risking their lives fighting two 
wars.
    A culture that has allowed massive waste of taxpayers' 
dollars has become business as usual at DOD. Particularly in 
today's fiscal environment, this cannot be tolerated. If this 
is not corrected, the Department's ability to continue 
defending the Nation and to provide for its national security 
will be compromised. Taxpayers simply will not tolerate the 
continuing waste of their resources in light of the debt we 
face and our competing budgetary needs.
    I also want to know if you share my concern that solving 
this problem may be hindered by the revolving door of retired 
flag and general officers, top Pentagon civilian officials, and 
mid-level bureaucrats who had overseen weapons procurement 
programs before leaving government to join private sector 
defense industry. With the defense contracting pie expected to 
get smaller in the future, this problem may get worse than 
before. I hope you are as sensitive to this as I am.
    Notably, as the Deputy Secretary you would also serve as 
the Department's Chief Management Officer. You'd be responsible 
for ensuring, among other things, the Defense Department 
becomes fully auditable by 2017, as required under law. I 
strongly support the requirement for the Department to pass a 
clean audit so I'd like to hear from you on this issue.
    Finally, I've been told that the Defense Department's 
comprehensive strategic review of military roles, missions, and 
requirements that underpins how it intends to carry out the 
President's direction for a $400 billion reduction in defense 
spending over the next 12 years may not come out before next 
year. If true, this review would not be available to inform the 
deliberations of the Joint Select Committee on Deficit 
Reduction, or Congress generally, on how the currently proposed 
defense spending cuts will affect national security. This is 
unacceptable.
    The efforts of the Department or Congress cannot be 
conducted in a vacuum. Any major budget review, whether 
conducted by the administration or Congress, must be 
accompanied by an open, honest, and comprehensive review of 
requirements and set priorities based on sound strategy.
    Dr. Carter, I have come to know you as a hardworking, 
honest and committed public servant. But, if confirmed, you 
would face major challenges in confronting the cultural 
impediments to proper fiscal stewardship at the Defense 
Department, which I trust you have come to understand. This 
culture needs to change. The Defense Department needs to 
change. It must do so in order to be the best provider it can 
be of our Nation's most essential service, our national 
defense.
    On all these vital matters, failure truly is not an option, 
and as the Department's senior leadership applies itself to 
this urgent and critical task you should know that you will 
have the support of your friends in Congress. The challenge 
ahead is daunting, yes, but I have confidence in our men and 
women in uniform that, given the task ahead, they will rise to 
the challenges and indeed do more with less. Your leadership 
and that of Secretary Panetta will be more crucial than ever.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now let me call on you, Dr. Carter. We know you're 
accompanied by your family here, so please feel free to 
introduce them.

STATEMENT OF HON. ASHTON CARTER, Ph.D., NOMINATED TO BE DEPUTY 
                      SECRETARY OF DEFENSE

    Dr. Carter. Thank you, Mr. Chairman, and to you, Ranking 
Member McCain. If I may, I'd like to make a brief statement, 
and then a number of questions have been raised already and 
I'll take them at whatever time it's convenient to you.
    Chairman Levin, Ranking Member McCain, all the 
distinguished members of this committee, it's a privilege and a 
deep honor to appear before you as the President's nominee for 
Deputy Secretary of Defense. If confirmed, I look forward to 
the opportunity to continue to serve President Obama and 
Secretary Panetta in a new role and to continue to work with 
the Chairman and the Joint Chiefs of Staff and with this 
committee to protect this great country, to serve the troops 
who serve us, and to leave a more secure world for our 
children.
    I'd like to thank my wife Stephanie, son Will, daughter Ava 
for being here today and for their support. I'd also like to 
thank Senator Lieberman for the kindness and honor of his 
introduction, for all he's done for this country, and for all 
he's taught me.
    If confirmed, I will step into large shoes and I would like 
to take this moment to express my admiration for the job Bill 
Lynn has done as Deputy. It has been a privilege to serve him.
    I have served, in one way or another, almost every 
Secretary of Defense since Caspar Weinberger, and I feel 
fortunate to have been a member of the Pentagon team led over 
these past years by Secretary Gates, Secretary Panetta, and 
Secretary Lynn.
    As Under Secretary of Defense for Acquisition, Technology, 
and Logistics, I have had two overriding priorities. The first 
has been to wake up every morning and ask myself what my office 
can do to support our troops in Afghanistan, Iraq, or anywhere 
else in the world they are deployed, whether with better 
protection against improvised explosive devices (IED), better 
reconnaissance and surveillance, or better logistics, and on 
their timetable and not on the timetable of the Pentagon's 
frequently ponderous acquisition and budgeting process.
    My second priority has been to deliver better buying power 
to the taxpayers and the warfighters for their defense dollars, 
working closely with our acquisition professionals, our 
industry partners, and Congress. It's an effort, as has been 
noted, that this committee began in its 2009 Weapons Systems 
Acquisition Reform Act, and I began with Secretary Gates, all 
well before the current budget crunch.
    But the performance of the system is in my judgment still 
not acceptable. I think Senator McCain used the word 
``intolerable'' and I would agree with that. I believe that 
there are some additional actions we're going to need to take 
to get better value for the defense dollar. This is something 
the American taxpayer should expect no matter what the defense 
budget is, but it becomes even more urgent in the serious 
budget predicament that faces us.
    Like Secretary Panetta, I do not believe we need to choose 
between strong fiscal discipline and strong national defense. 
If confirmed as Deputy Secretary of Defense, these two 
priorities will continue, but many others will be added. 
Secretary Panetta has made it clear to me that he expects his 
deputy to be prepared to act and speak in his stead at all 
times. He expects the deputy to shape an orderly deliberative 
process for him, so that he can make decisions and advise the 
President based on careful consideration of accurate management 
information and a full range of options. He expects his deputy 
to manage the budget down to a finite number of key issues that 
he needs to decide and to manage other Department-wide matters 
that require his attention only for final decisions of greatest 
consequence.
    Finally, Secretary Panetta expects all this to be done with 
the same heart, the same integrity, and the same dedication to 
our soldiers, sailors, airmen, and marines that he brings to 
the job.
    In all these tasks, I pledge to Secretary Panetta and to 
this committee, if confirmed, my most earnest efforts. Thank 
you once again for the opportunity to appear before you.
    [The prepared statement of Dr. Carter follows:]
              Prepared Statement by Hon. Ashton B. Carter
    Chairman Levin, Ranking Member McCain, and all the distinguished 
members of this committee, it is a privilege and a deep honor to appear 
before you as President Obama's nominee for Deputy Secretary of 
Defense. If confirmed, I look forward to the opportunity to continue to 
serve the President and Secretary Panetta in a new role, and to 
continue to work with the Chairman and the Joint Chiefs of Staff, and 
with this committee, to protect this great country, to serve the troops 
who serve us, and to leave a more secure world for our children.
    I would like to thank my wife, Stephanie, and children, Will and 
Ava, for being here today and for their support. I would also like to 
thank Senator Lieberman for the kindness and honor of his introduction, 
for all he has done for this country, and for all he has taught me.
    If confirmed, I will step into large shoes, and I would like to 
take this moment to express my admiration for the job Bill Lynn has 
done as Deputy. It has been a privilege to serve him. I have served in 
one way or another almost every Secretary of Defense since Caspar 
Weinberger, and I feel fortunate to have been a member of the Pentagon 
team led over these past years by Secretary Gates, Secretary Panetta, 
and Secretary Lynn.
    As Under Secretary of Defense for Acquisition, Technology, and 
Logistics, I have had two overriding priorities. The first has been to 
wake up every morning and ask myself what my office can do to support 
our troops in Afghanistan, Iraq, or anywhere else in the world they are 
deployed--whether with better protection against improvised explosive 
devices, better reconnaissance and surveillance, or better logistics--
on their timetable, and not on the timetable of the Pentagon's 
frequently ponderous acquisition and budgeting processes. My second 
priority has been to deliver better buying power to the taxpayers for 
their defense dollars, working closely with our acquisition 
professionals, our industry partners, and Congress. It is an effort 
this committee began in its 2009 Weapons Systems Acquisition Reform 
Act, and I began with Secretary Gates--all well before the current 
budget crunch. But the performance of the system is in my judgment 
still not acceptable, and I believe that there are some additional 
actions we are going to need to take to get better value for the 
defense dollar. This is something the American taxpayer should expect 
no matter what the defense budget is. But it becomes even more urgent 
in the serious budget predicament that faces us. Like Secretary 
Panetta, I do not believe that we need to choose between strong fiscal 
discipline and strong national defense.
    If confirmed as Deputy Secretary of Defense, these two priorities 
will continue. But many others will be added. Secretary Panetta has 
made it clear to me that he expects his Deputy to be prepared to act 
and speak in his stead at all times. He expects the Deputy to shape an 
orderly deliberative process for him, so that he can make decisions and 
advise the President based on careful consideration of accurate 
management information and a full range of options. He expects his 
Deputy to manage the budget process down to a finite number of key 
issues that he needs to decide, and to manage other Department-wide 
matters that require his attention only for final decisions of greatest 
consequence. Finally, Secretary Panetta expects all this to be done 
with the same heart, the same integrity, and the same dedication to our 
soldiers, sailors, airmen, and marines that he brings to the job.
    In all these tasks, I pledge to the Secretary of Defense and to 
this committee, if confirmed, my most earnest effort.
    Thank you once again for the opportunity to appear before you.

    Chairman Levin. Thank you, Dr. Carter.
    We start, as we always do with nominees, with the standard 
questions. You've answered them before, but we'll be asking you 
to answer them again.
    In order to exercise our legislative and our oversight 
responsibilities, we have to receive testimony, briefings, and 
other communications of information in a timely way.
    The first question is: Have you adhered to all of the 
applicable laws and regulations governing conflicts of 
interest?
    Dr. Carter. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Carter. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Dr. Carter. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Carter. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Carter. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Carter. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Dr. Carter. Yes.
    Chairman Levin. Let's try an 8-minute first round of 
questions.
    First on the budget. It is very clear that substantial cuts 
to the defense budget are on their way. We've already made cuts 
in our authorization bill. There's already cuts that we're 
working on for a possible modification of that bill so that the 
committee could consider a committee modernization before the 
bill comes to the floor.
    The recent legislation on the debt ceiling calls for $400 
billion of reductions in security spending. That's a slightly 
larger item than just defense spending, but it's mainly defense 
spending. It's $400 billion in reductions in security spending 
over 10 years, and if the joint committee which has been 
appointed cannot reach agreement and if a sequester is 
triggered, then there could be additional cuts approaching $600 
billion over 10 years.
    The joint committee has requested this committee and other 
standing committees for input. They need our input by mid-
October, recommendations to them for reductions. It is a 
critically important review by them and by us. Now, we're going 
to need the Department to give us recommendations, data, 
detail, before we consider our input that we would recommend to 
that new committee.
    My first question is, will you, immediately upon 
confirmation, work to ensure that this committee gets the views 
of the Department on two things: one, steps that you recommend 
that we recommend to achieve reductions and to help avoid 
sequestration; and two, your views on the consequences of 
sequestration if it occurred?
    Dr. Carter. I do. Secretary Panetta's made it quite clear 
that this is a circumstance that's unprecedented and we can't 
get through it and do the right thing unless we are in close 
consultation with Congress, and that means that the way we 
would normally do budget business we're going to have to change 
this year. I certainly pledge to you, if confirmed, that close 
consultation. But the important thing is Secretary Panetta has 
made that quite clear.
    Chairman Levin. Consultation is important, but we also need 
recommendations. What we will need from you, I would say 
probably immediately upon confirmation, is a timetable for when 
you will be giving us the Department's recommendations for 
reductions to meet the legislation which has been adopted. Will 
you give us that timetable promptly upon confirmation?
    Dr. Carter. If confirmed, absolutely, Mr. Chairman.
    Chairman Levin. Now, do you believe that we also as part of 
that need to reexamine military personnel costs, including 
health care, compensation, retirement benefits, the things 
which we obviously are reluctant to impact, nonetheless we have 
to at least look at for possibilities? Do you agree with that?
    Dr. Carter. I do. Secretary Panetta has used the phrase 
``everything on the table''. However, that is subject to one 
proviso and that is that, as he puts it, he doesn't want us to 
do anything that breaks faith with those who are serving or 
have served and therefore have an understanding about those 
matters that you just named. He doesn't want us to break faith 
with those understandings. But subject to that limitation, 
compensation, like acquisition, like operations and 
maintenance, like everything else, he says has to be on the 
table, given the magnitude of the task in front of us.
    Chairman Levin. That's a limitation which I think every 
member of this committee would share.
    Given the budget pressures under which the Department's 
going to be operating, one of the things that some of us 
believe we have to do is to take a look at the stationing and 
restationing of and the location of our military forces 
overseas, where we have a large number of bases, and to 
consider both relocation and the restationing possibly of some 
of those military forces from overseas back to the United 
States. Is that on the table?
    Dr. Carter. On the table.
    Chairman Levin. One of the areas where a number of us have 
focused, particularly Senator Webb, who along with Senator 
McCain and I have proposed changes to basing plans on Okinawa 
and Guam, and also urged a review of the plans that we have in 
Korea relative to stationing of forces and tour normalization. 
Is that all on the table?
    Dr. Carter. On the table.
    Chairman Levin. By the way, the Government Accountability 
Office reviewed that Okinawa-Guam issue and concluded that the 
total cost of the Okinawa-Guam realignment would be over $27 
billion and that the Guam buildup alone would cost more than 
$17 billion, with the U.S. share being $11 billion, which is 
much more than originally projected, and in our current fiscal 
environment I believe that we simply cannot continue with such 
massive restructuring and surely we can't do that until we have 
reliable cost and schedule data.
    We may not be able to get that data in time for this 
review, but we're going to have to do the best that we can, and 
I'm glad to know that you are going to be working with us.
    Now, that also would include, I hope, stationing forces in 
Europe and their location. Is that included?
    Dr. Carter. Yes, it is.
    Chairman Levin. Okay.
    On acquisition issues: We have these huge cost overruns 
and, while there's been some efforts, and we applaud the 
efforts which have been made, to try to bring them under 
control, and we have our Acquisition Reform Act now which is in 
place, which hopefully is going to avoid these kind of cost 
overruns in the future, nonetheless we must act. One of the 
things that we have to do is take a look at the JSF program. 
I'm wondering whether you believe that, for example, it is 
important that program look at the possibility of competing 
subsystems on the JSF or to compete logistics support to help 
reduce this year's estimate that the life cycle costs of the 
JSF are going to exceed $1 trillion. Are you willing to look at 
all that?
    Dr. Carter. I am, Mr. Chairman, absolutely.
    Chairman Levin. Please just expand on that.
    Dr. Carter. You mentioned the sustainment costs of the JSF. 
Senator McCain was referencing the production cost of the JSF. 
The JSF isn't alone among our programs and activities which 
have exhibited, as Senator McCain said, intolerable cost 
growth. We are working on both the production and the 
sustainment part of JSF and others.
    On the sustainment part in particular, Admiral Venlet and I 
are just beginning work on that this fall. That's a project 
that the program office hadn't really taken on before, managing 
that very large sustainment cost. I've seen the estimates for 
the costs of sustainment for JSF and they're unacceptably high. 
At the same time, we have not begun to manage them yet, and 
when we do so I'm expecting that they will come down.
    But in all of these matters, on all of our programs, we 
have a lot of work to do. WSARA was a fundamental foundation 
for us. We have tried to implement it in each and every one of 
our programs. But as I indicated to Senator McCain, we have 
more to do and there are some new chapters I think we need to 
open in our acquisition efforts to get even better.
    Chairman Levin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Secretary, if deficit reduction negotiations fail, 
triggering sequestration, Secretary Panetta has said that 
bigger defense cuts would have a ``devastating effect on the 
Nation's security''. Do you agree with Secretary Panetta?
    Dr. Carter. I absolutely do.
    Senator McCain. It would be devastating?
    Dr. Carter. Devastating, and I say ``devastating'' not 
lightly, but in light of two things. One is the scale. Chairman 
Levin already alluded to the scale, $600-ish billion on top of 
what we're facing already, which would take us to a total 
reduction over the next 10 years of in the neighborhood of $1 
trillion. Just the scale of it alone would lead us to have to 
consider truly draconian things--abandoning major weapons 
systems, furloughing civilian employees, and abruptly 
curtailing training because we couldn't pay for fuel, and so 
forth. That's the scale.
    The other thing about the sequester provision is that it's 
arbitrary. It's across the board, meaning it deprives us of the 
opportunity for choice, strategic choice. It puts a haircut 
across everything. You get yourself in a circumstance where, 
for example, you can't execute. You can't buy three-quarters of 
an aircraft carrier or three-quarters of a building.
    Both in the size and in the nature of the sequester, I 
think that word applies.
    Senator McCain. Thank you. I hope that all of our members 
and the American people pay attention to what you and Secretary 
Panetta are saying.
    I want to be a little more specific. In your answer to 
Chairman Levin's statement, you said, do I understand you 
correctly, you will be sending us recommendations as to what 
reductions need to be made to comply with the $20 billion 
reduction in authorization that is going to be appropriated? Is 
that correct, you will be sending us recommendations?
    Dr. Carter. That is. I think the shape they'll be in as 
they come across is not their final recommendations, but the 
options that we're considering. Decisions haven't been made. 
The comprehensive review is surfacing those options, so I would 
say even before decisions are being made----
    Senator McCain. Are you going to send us the 
recommendations?
    Dr. Carter. Absolutely.
    Senator McCain. Now, are you going to be sending us a 
comprehensive strategic review before we act, in other words 
before the end of this year?
    Dr. Carter. Yes, the comprehensive review will provide 
those recommendations before the end of the year.
    Senator McCain. Will we receive them before 2013?
    Dr. Carter. Yes.
    Senator McCain. Thank you.
    Do you agree there's a systemic cultural problem in how the 
Department does its acquisition business?
    Dr. Carter. I do.
    Senator McCain. What is your assessment of the enduring 
security needs of Iraq and of U.S. national security interests 
there?
    Dr. Carter. We have spent a lot of time, blood, and 
treasure in Iraq and have gotten ourselves to a point now where 
in my judgment we have created a future of stability for Iraq, 
and I think we all want to act at this juncture to make sure 
that's preserved. As we reach the end of the year and look 
forward to what happens after the end of the year, preserving 
those gains is the objective.
    Senator McCain. Have you formed your own opinion of the 
number of U.S. troops that would be needed and how to ensure 
their security?
    Dr. Carter. I have not. That is not one of my current 
responsibilities.
    Senator McCain. Do you know whether any military officer 
recommended to the President that troops be withdrawn from 
Afghanistan at the size and pace his plan dictates?
    Dr. Carter. I do not, no.
    Senator McCain. Your view of that decision you have not 
formed yet?
    Dr. Carter. No. If your reference is to the 3,000 number 
that's been in the press, that's not a number that I can 
validate at all. No decision has been made. No decision could 
have been made because, as I understand it, we're in 
discussions with the Iraqis about the mission and what goes 
forward.
    Senator McCain. This is probably not the subject of this 
hearing, but no one has denied that number, Dr. Carter. It's 
been published in the press and the media and no one in the 
Pentagon has said: No, that's not the number.
    Dr. Carter. I'm not familiar with the number.
    Senator McCain. On the JSF program, over the last year and 
a half you restructured the program twice by adding $7.4 
billion and 33 months to the development part of the program. 
If by the end of the year and under a fixed-price contract the 
program is not on track, what should we do?
    Dr. Carter. We have put in place a progressive step and 
we're going to continue to do that.
    Senator McCain. But let's assume that they do not reach the 
fixed-price contract and the program is not on track.
    Dr. Carter. The contract is very clear about the penalty 
paid. We do not bear the cost this time, unlike the cost 
overruns you referred to earlier. Because we have a fixed-price 
contract, the Government's liability is not open-ended, as it 
was in the past. If it overruns past the ceiling price on this 
fixed-price incentive firm (FPIF) contract, that's entirely on 
those performing the work and the taxpayer does not share in 
that liability.
    Senator McCain. I'd like to believe that, but that hasn't 
happened yet and the program has been in the making for, what, 
10 years now? How much has it cost, $56 billion? We have 18 
airplanes.
    Dr. Carter. I'm sorry, I thought you were referring to the 
low rate production contract--it's total value is about $56 
billion, yes.
    Senator McCain. Have you seen the report that says that 
``The study paints a bleak picture of billions sunk into 
incomplete Army programs. Cancelled programs have eaten up 
between $3.3 billion and $3.8 billion since 2004. Numbers 
represent an average of 35 percent to 45 percent of the Army's 
annual budget for development, testing, and engineering.'' Are 
you familiar with that?
    Dr. Carter. I am, and it's unbelievable and as far as I can 
see, true. There were so many programs that were begun with 
optimistic assumptions or with an extravagant expectation. Then 
they get halfway built, it's like a bridge to nowhere, you 
can't complete them. This is something that you had in your 
WSARA. Now as we start new starts--and we do have some new 
starts even in this budget climate, for example the Ohio-class 
submarine--we're not going to let them start until and unless 
we see affordability and a target for affordability set early 
in the program, so that we don't have these bridges to nowhere.
    Senator McCain. Mr. Secretary, I hope that's the case. We 
continue to be reassured that things are changing and somehow 
they don't.
    Finally, are you confident that we can have DOD fully 
auditable by 2017? That's another moving target that we have 
been watching for many years.
    Dr. Carter. It's not moving any longer, as near as I can 
tell. Secretary Panetta made it clear that 2017, he means it. 
In fact, he said sooner if possible.
    Senator McCain. I thank you.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    First let me welcome Dr. Carter, who I've had the privilege 
of knowing and working with for many years. I can't think of 
anyone who is better prepared, not just intellectually and 
academically, but through the last several years of experience 
of dealing with these challenges we're talking about. I welcome 
your nomination and look forward to your confirmation.
    I also want to recognize your family and thank them for all 
they've done to allow you to serve the Nation.
    Let me say, I associate myself with the remarks of Senator 
McCain. I don't think I've heard it as insightfully or 
thoughtfully put in terms of the cultural challenges facing the 
Department, the issue specifically of the revolving door, of 
auditing issues, and the, frankly, poor performance over the 
last, not several years, but many years of acquisition and 
procurement programs.
    I think one of the issues is that, looking back now over 4 
decades or so of involvement with the military, sometimes it's 
a contractor-driven environment, no longer strategic, even 
budgetary, and certainly not sort of uniformed military advice, 
but a contractor-driven environment. That's something you're 
going to have to face.
    But let me focus on two issues. One was raised by Senator 
McCain. It's the auditing. In order to fully audit DOD, you 
need auditors. We've had this discussion before. One of the 
reasons that literally we have seen millions and millions of 
dollars disappear in places like Afghanistan and Iraq is that 
you have not been able to put on the ground adequate number of 
auditors; is that correct?
    Dr. Carter. That is correct.
    Senator Reed. What are we doing to fix that?
    Dr. Carter. Trying to put more on the ground, that's just 
one of the things we're trying to do. We are increasing the 
number of investigators so that the investigations and 
prosecution of transgressions is strengthened. General David 
Petraeus when he was commander over there established a number 
of task forces to do that, that have made a lot of progress and 
that we support.
    Of course, you don't want to get to the point where you're 
investigating and prosecuting. You want to prevent in the first 
place. That is, you don't want to have the conditions where 
it's even possible to defraud us on a contract. That means 
having contracting officers, contracting officer 
representatives, construction engineers, all the things 
associated with the programs that we're contracting for in 
Afghanistan and Iraq, in adequate numbers and with adequate 
skills.
    It means having commanders who are contractor-aware and 
proficient and know how to do this in their area of 
responsibility. In this and all of these areas, we have to 
improve our performance in contingency contracting. I fully 
recognize that.
    The Commission on Wartime Contracting has made a number of 
recommendations, the great bulk of which I agree with and we 
are actually implementing. But we have a ways to go.
    Senator Reed. In that context, I think this is one of those 
areas, too, which is the first to be thrown overboard when the 
budget gets done in terms of auditors, professional auditors, 
career personnel. I think we've learned to our disappointment 
that contracting out some of these procedures doesn't help, 
either. You are challenged to rebuild, essentially, a 
professional DOD auditor corps and Service-connected auditor 
corps. Is that going to be one of your commitments?
    Dr. Carter. It is, absolutely, and it actually began in 
this committee before I took office. It affects the acquisition 
workforce as a whole. We need to have within the Government the 
expertise and the controls. That is not something that we can 
outsource. That is something that we need to have within the 
walls of government, and that's why we've been working so hard 
to increase the strength of the overall acquisition workforce, 
which includes the auditing workforce.
    It's not just a numbers thing. It's skills, it's giving 
them opportunities for professional development, adequate 
training, and accreditation. All of that we are doing.
    Senator Reed. Let me also raise an issue that Senator 
McCain raised, which I concur in, and that is this revolving 
door phenomenon. We've had discussions about this also. My 
sense is that's obviously a challenge to you and Secretary 
Panetta, but I think it also has to begin or it has to be 
substantially embraced by the professional uniformed officers 
and noncommissioned officers in terms of their expectations of 
what they will do when they leave and the expectations of their 
relationship to the Department after they leave.
    I would urge you--I've done this privately to General 
Dempsey--to begin thinking very seriously about, is there, not 
a law, but a code or a reevaluation of the ethical dimensions 
of service after retirement in relation to DOD, because unless 
you have that you won't have the best guide or the buy-in by 
those people who are affected by this.
    Do you have any thoughts on that?
    Dr. Carter. Just that I share the thought. I think Senator 
McCain began it. I will say this. I travel all around the 
country to the places where the real work is done. These are 
our systems command, our logistics centers, and so forth, where 
the folks actually do the work of contracting and program 
management, this tremendous workforce, mixed military and 
civilian.
    They know what the right thing to do is. The overwhelming 
majority of them know what the right thing to do is. They hear 
what I'm saying and they know what the right thing to do is. It 
is a huge source of support to them in doing the right thing 
when they hear from you, from you here, that you are behind us 
and the leadership in the Pentagon in supporting them. They're 
supposed to be acting in the warfighters' and the taxpayers' 
interest and we just need to stand behind them, give them the 
tools to do the right thing and then support them.
    It's great for me. I go out all the time, I talk to them, 
and they say: I appreciate what you're saying because it sounds 
like if I make a hard decision and drive a hard bargain on 
behalf of the taxpayer and the warfighter you'll stand behind 
me. I will, but that's only half the action. It's important 
that they know that Congress stands behind them, too.
    I just wanted to say I appreciate the support. I understand 
the frustration that you feel over the performance of the 
acquisition system, but I don't mind the pressure because it's 
right and it sends the right signal to our people.
    Senator Reed. Let me just add a quick postscript. I can't 
think collectively of a more ethical group of people than 
professional military officers and noncommissioned officers who 
served the Nation and retired. But the context has changed over 
the last several decades, and I think you're right, we do have 
to send a message about obligations to the taxpayers, to the 
service men and women who continue to serve. Again, I think 
what we do and what you do is going to be critical. But without 
enlisting the senior retired and the currently senior members 
of the military in this thoughtful discussion, we won't be as 
successful as we must.
    My time has expired, but again, Dr. Carter, for your 
remarkable service to the Nation let me thank you and wish you 
well.
    Dr. Carter. Thank you, Senator.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Thank you, Dr. Carter, for being responsive and coming by 
and talking to us, not just in preparation for this particular 
position, but in years in the past. I appreciate that very 
much.
    I have six things real quickly, two of which will be 
something for the record I'd like to get back from you, but 
they're more specific than some of the general things that were 
talked about by the other questioners on this panel. One would 
be--and I have to go back historically and look at this--one of 
the deficiencies that we have had for a long period of time has 
been in our Non-Line-of-Sight (NLOS) Cannon.
    I can remember back when I was in the House Armed Services 
Committee many years ago and we talked about that. Then along 
came the Crusader. We developed that over a period of time and 
it was--I hate to say this as a Republican about a Republican 
President, but it was President Bush in 2002 with just no 
warning at all, at least to me, terminated that program.
    General Shinseki came along and started working on a Future 
Combat System (FCS) that would go farther than just an NLOS 
Cannon. But nonetheless, we're still operating, it had been up 
until recently, where there are five countries, including South 
Africa, that have a better NLOS cannon than we do. This isn't 
what the American people expect.
    On this particular program, I disagreed with all those. 
However, the Paladin Integrated Management (PIM) program now 
that you and I talked about, is now the Army's lead fire 
support modernization effort and I think it's moving along well 
now. But judging from the past when we had our programs, the 
Crusader, the FCS, all moving along fine, all of a sudden 
something happened.
    I'd just like to have you make any comments that you might 
have concerning this program, seeing it through, and its 
significance?
    Dr. Carter. It certainly is significant, Senator, and I'm 
personally involved in the acquisition strategy for Paladin, 
PIM. I'm very familiar with it. We're crafting that acquisition 
strategy now. The Army acquisition executive has that ball. 
She's doing a really good job of it and I think it's a well 
managed activity.
    Senator Inhofe. All right. Several of us up here have 
talked about the F-35. It's one that certainly is a great 
concern. The Pentagon recently sent a report to Congress on the 
Chinese military warning. I'm quoting now. It said: ``China's 
military has benefited from robust investment in modern 
hardware and technology. Many modern systems have reached 
maturity and others will become operational in the next few 
years.''
    One of those investments that they have been talking about 
is their new J-20 stealth fighter. You say the same thing about 
Russia with its fifth generation fighter, the T-50. The F-35 
being our only fifth generation fighter, I am more concerned 
now about it than I was before, back when the termination of 
the F-22 came along.
    But I understand the missions of both of them and what can 
be done with the F-35. When you stop and think about the need, 
as I recall when this program first came it was 2001, they were 
anticipating 2,852 copies. That's what they talked about at 
that time. Now, since that time reports such as the two that I 
just mentioned from Russia and China have--to me, if our 
amount, the number that we should have had was 2,800 back in 
2001, it would be actually more now.
    You are now looking at 2,443 of the F-35s that would be 
required by our Air Force, Navy, and Marine Corps. I've often 
wondered why it's fewer now, in the absence of the F-22 and 
with the developments that are taking place in Russia and 
China. Do you feel that number is adequate? I know that you're 
involved in that, but also I know that you might have a 
different opinion.
    Dr. Carter. No, that is the joint requirement right now, 
2,443 for the U.S. force, and then of course there are 
additional F-35s that are going to be built for the partner 
nations. I did do a Nunn-McCurdy certification this past 
summer, as required by law, of the F-35 program, and in the 
course of that our independent cost analysis and program 
evaluation shop did an assessment of the need for the JSF, 
because as part of certifying a program that is in Nunn-McCurdy 
breach, as JSF is, I have to ascertain whether there are 
alternatives that could replace it.
    We did not find alternatives to the JSF, no other 
alternative that met the joint requirement that exists, 
``joint'' meaning there's an Air Force variant, a Navy variant, 
and a Marine Corps variant.
    Senator Inhofe. Why don't you give me some detail for the 
record, concentrating on the figure that was used in 2001, the 
developments in Russia and China, and then that reduced figure 
today, just for the record.
    Dr. Carter. Will do.
    [The information referred to follows:]

    Based on the current and projected threats, I believe it is 
critical that we transition to a fifth generation capability across the 
U.S. Services while maintaining sufficient legacy inventory capacity to 
prevail in current and near-term conflicts. The Joint Strike Fighter's 
(JSF) unprecedented combination of stealth, sensing, and firepower will 
give our force the crucial edge it needs against advanced threats. The 
current U.S. joint Service requirement of 2,443 F-35s (plus F-35s for 
partner nations) remains in force based on the existing strategy, force 
structure, and available resources.
    In 2001, the planned JSF procurement strategy for the Department 
was 2,866 aircraft (1,763 U.S. Air Force and 1,089 Department of the 
Navy). In 2002, the Department of the Navy reduced their planned 
procurement to 680 JSF with the incorporation of the Tactical Aircraft 
Integration (TAI) Plan. TAI more fully integrates the Navy and Marine 
Corps forces by having Marine Corps TACAIR squadrons deploy with 
Carrier Air Wings and Navy squadrons deploy with Marine Aircraft Wings. 
TAI efficiencies allow the Department of the Navy to operate a smaller 
total of strike fighters and therefore will enable a reduced JSF 
procurement plan.

    Senator Inhofe. Now, you were in my office. You gave me 
this cute little thing here to carry around and I have looked 
at it. No one understands it. I don't understand it. I don't 
think you understand it. But it is very complicated.
    What I've done is blow this up for my colleagues up here. 
Let me tell them what we're talking about here. This is the 
``Federal Acquisition Rule''. This is how we do business. I 
look at this and I feel a little bit like Kit Bond [former 
Senator Christopher Bond, R-MO], although he's not here in the 
Senate with us any more, but he used to carry these around.
    When you look at the complications that are there--and 
Senator McCain referred to this also--there are 1,680 policy 
documents and 91 laws affecting Federal Acquisition Regulations 
(FARs). Here they are right here. Now, we know it can be done 
faster. We've made exceptions. We have developed alternative 
procedures and working groups and organizations, such as the 
Joint Improvised Explosive Device Defeat Organization (JIEDDO), 
as I mentioned to you. That's the IED technology that's coming 
along. I'm very proud of Lieutenant General Mike Barbero, who 
brought his team in and looked at what we can do. I just sat 
there and I thought, this is something that's happening today; 
we're responding; we can come up with something and have it in 
the field almost in a week.
    If that's possible, I get the impression that, as 
complicated as this is, the FAR Council is made up of the 
Administrator of the Federal Procurement Policy Office, 
Secretary of Defense, Administrator of National Aeronautics and 
Space Administration, and Administrator of the General Services 
Administration. I think they're just too busy to get into this 
thing and get their hands dirty and fix it.
    Do you have any alternatives to overcome this process if 
we're not able to do it by getting those four entities in one 
room until it's done?
    Dr. Carter. First of all, for those who haven't had the joy 
of contemplating that chart, that shows the budgeting process, 
the acquisition process, and the requirements process in one 
big chart, and I was in an earlier conversation joking with a 
Senator that anybody who could master all of that probably 
would get pretty frustrated with how ponderous is.
    Mike Barbero, the really superb Director of JIEDDO, with 
whom I work every day, does things differently, and we can do 
things differently. I said in my opening statement that I have 
two priorities now. One is supporting the warfighter in the 
here and now and the other is managing all our programs and 
activities. When we do things like MRAP or JIEDDO, we can't 
follow that because the battlefield changes too quickly and we 
can't wait.
    Senator Inhofe. Exactly.
    Dr. Carter. Also, in response to Senator McCain, who was 
saying, can't we turn yet more pages and do things differently, 
one of the things I think we have ahead of us now is to try to 
take the experience of the wars and apply that to our usual 
FAR-driven acquisition system and see if we can't take some of 
the lessons of what I call the fast lane and apply them to the 
FAR and review the FAR.
    Senator Inhofe. Okay, that's good. It has worked, and I ask 
unanimous consent that this be made a part of the record at 
this point in the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. I know my time has expired, and I was going 
to get into the Army Ground Vehicle. Almost everything that 
I've said about the NLOS Cannon would apply to that, too. In 
2009, General Thompson said the Army has to modernize those 
16,000 fighting vehicles for the future or we are going to put 
soldiers in harm's way. That was 2009.
    [The information referred to follows:]

    The Army has a comprehensive Combat Vehicle Modernization (CVM) 
strategy that addresses key capability shortfalls for the entire combat 
vehicle fleet (Abrams tank, Bradley Fighting Vehicle, Stryker, and M113 
family). The strategy is based on three parallel and complementary 
efforts: transform, replace, and improve. The highest priority effort 
is transforming the capability of the Heavy Brigade Combat Team by 
acquiring the Ground Combat Vehicle Infantry Fighting Vehicle. The 
second priority is replacing the M113 Family of Vehicles with an 
Armored-Multi Purpose Vehicle (AMPV). Lastly, the Army will improve the 
Abrams tank, Bradley Cavalry, Fire Support, Engineer Vehicles, and the 
Stryker to increase protection, ensure required mobility, and allow 
integration of the emerging network. This strategy ensures the Army's 
entire fleet of combat vehicles will be able to operate side-by-side 
across formations with common situational awareness and required levels 
of protection, mobility, and lethality.
    The Ground Combat Vehicle (GCV) is funded in the President's budget 
for fiscal year 2012 (PB12) and the funding extends throughout the 
Future Years Defense Program (FYDP). In addition to the GCV, the Army's 
CVM strategy has several other components, to include upgrading Abrams 
tanks and non-infantry fighting vehicle (IFV) Bradleys. Upon 
congressional approval of a new start, the Army intends to initiate the 
AMPV program. The AMPV will replace the M113 Family of Vehicles (FOV) 
with a platform that is more survivable, mobile, and can accomplish 
missions across the full spectrum of conflict.
    The Army's PB12 request includes RDT&E funding for all three CVM 
components. Procurement funding for the AMPV is planned to start in 
fiscal year 2014 with the first unit equipped planned for fiscal year 
2017.
    Abrams and non-IFV Bradley upgrades are also funded in PB12 and the 
funding extends throughout the FYDP.
    The Army believes that collectively, all components of the CVM 
Strategy are within the Army's projected funding resources.

    Senator Inhofe. For the record, I'd like to have you 
address that, as well as, in Afghanistan I know our Oklahoma 
45th, we've lost now 10 people already, and one I've been very, 
very close to is Specialist Chris Horton. I look at these 
results coming in and I look at the question of reducing our 
numbers and how we're going about it. I'd like for the record 
to have you evaluate that for both Iraq and Afghanistan.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

Iraq:
    We continue to abide by the 2008 U.S.-Iraq Security Agreement, 
which requires pulling out all U.S. forces by the end of the year. This 
would fulfill the drawdown that the President began with his Iraq 
strategy announcement in February 2009, which included an end to the 
combat mission in August 2010, and a responsible drawdown of all U.S. 
forces by the end of this year. Since that announcement, more than 
100,000 U.S. forces have departed Iraq. The U.S. forces that remain 
have shifted into an advisory capacity, and Iraqis have fully taken the 
lead on security, and have been successful in keeping violence levels 
low. Over the next 2 months, the remainder of U.S. forces will depart 
Iraq unless the United States and Iraq negotiate a follow-on presence.
Afghanistan:
    The International Security Assistance Force, U.S. Forces-
Afghanistan, and U.S. Central Command are looking at ways to optimize 
our headquarters forces structure and thin the lines in areas that have 
transitioned to Afghan security forces lead, while ensuring that U.S. 
and coalition forces maintain the capabilities they need. The plans for 
the first phase of the drawdown will be briefed to the President in 
mid-October. The details of the U.S. surge recovery are classified, and 
will be presented in the October version of the congressional boots-on-
the-ground report.

    Chairman Levin. Thank you, Senator Inhofe.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you, 
Dr. Carter. Sorry that you're going to have to strain your neck 
looking over in this direction. I want to thank you for being 
here, your extraordinary service to our Nation over many years, 
your teaching at Harvard and other institutions, and helping to 
develop a new cadre of public servants. Thank you also to your 
family for their support over those many years.
    You and I talked briefly about the Joint Strike Fighter and 
about the two submarine-building programs, both very important 
to our national security, and I'm gratified that you will 
continue to support those two programs, as we discussed, and 
thank you for that support.
    We talked as well a little bit about the IED roadside bomb 
problem, which is so heinous and pernicious a cause of injury 
and death to our troops, in fact, I think it's responsible for 
more than 85 percent of all our casualties, deaths, and wounds 
to our warfighters abroad. I wonder if you could reaffirm for 
me your commitment, which you stated so eloquently in our 
meeting, to continuing and enhancing the effort to provide 
better body armor and better protection to our troops who are 
fighting right now.
    Dr. Carter. I absolutely do. It's what I wake up to every 
morning. Secretary Gates gave me the responsibility for the 
counter-IED fight 2\1/2\ years ago and then expanded that to 
all of our fast lane activities, and it's job one.
    Senator Blumenthal. Thank you.
    I recently visited both Afghanistan and Pakistan in a trip 
led by Senator Casey, also joined by Senator Whitehouse and 
Senator Bennett. We spoke with a number of the leaders of 
Pakistan, the highest ranking leaders, including Army Chief of 
Staff Kayani, the Prime Minister, and the President. They have 
a plan. It still needs to be judged in whether in fact it's 
implemented, let alone implemented effectively.
    But if resources are necessary to help to stop and stem the 
flow of fertilizer and the substances used by terrorists to 
make those roadside bombs, would you consider using some of the 
$800 million now going to the task force for that purpose?
    Dr. Carter. I would. Just let me say that I appreciate that 
you have keyed in on this as an important part of the IED 
fight. The calcium ammonium nitrate that originates in Pakistan 
and then shows up as homemade explosives in Pakistan, other 
chemicals--potassium chlorate, which is a favorite of the enemy 
in the east, as the home-made explosive is a favorite of the 
enemy in the south--we have to attack this IED problem in every 
single possible way we can, and you can't just wait for it to 
come and get you. You have to go back into the supply chain.
    Part of that supply chain traces back into Pakistan. We 
need to get back and get at that. I know that we've been 
working with Pakistan to that effect, but really just in a 
preliminary way, and a lot more needs to be done.
    Senator Blumenthal. I would like to pledge to you--I know 
that many of my colleagues would join me in this commitment to 
persuading, cajoling, whatever we can do to put pressure, very 
simply, very bluntly, on the Pakistanis to face their 
responsibility, not only to their allies, but to their own 
people, who are often the victims of the devastating effects of 
these roadside bombs and suicide bombs made with those 
materials.
    I understand also that you are very much on top of the 
program to provide better body armor, and other protection to 
our warfighters from these roadside bombs, and that the growing 
protective armament, as well as the so-called biker shorts, are 
likely to be fully delivered by next month or within that time 
period; is that correct?
    Dr. Carter. That's correct. We are procuring large 
quantities of ballistic underwear, several different variants 
of it that offer differing levels of protection, both male and 
female. Obviously, this is a critically important effort, so 
we're sparing no effort in that regard. We have a number of 
suppliers to make sure that we're not dependent upon any single 
supplier who might have a production interruption or something 
like that and people wouldn't get to have the protection.
    We want to, within limits, provide folks with some choice, 
so we'd like to make several different variants, because it's 
obviously an issue of personal sensitivity. But, like all our 
armor issues, with vehicles, body armor, and so forth, there's 
nothing more important than this. We're all over it.
    Senator Blumenthal. I'm hopeful that we'll continue the 
effort--I know of your very distinguished scientific background 
in areas of physics and so forth, as well as in public policy--
to develop even more effective protective devices for our 
troops there.
    Dr. Carter. We are, absolutely.
    Senator Blumenthal. One last area before my time expires. 
While many of these horrific wounds are visible in loss of limb 
and other kinds of very destructive internal wounds, some of 
them are invisible--the post-traumatic stress and chronic brain 
injury. I wonder what efforts you envision--I know there are a 
lot of ongoing efforts--to address these kinds of invisible 
wounds that are often undiagnosed and therefore completely 
untreated?
    Dr. Carter. We look back in history and one of the good 
things that will come out of what is otherwise not a good 
thing--that is, a decade of war--will be the progress we have 
made in recognizing the unseen injuries of war, and not only 
recognizing them, but treating them.
    I'll just make one comment. If you go up, as I'm sure many 
of you had, up to Bethesda to the Intrepid Center there, that 
particular Intrepid Center focuses on post-traumatic stress and 
traumatic brain injury in the same way that the one in San 
Antonio, for example, focuses on amputation and prosthesis. 
It's just amazing what is being done to bring together the--I 
probably won't use the right words here; I'm not a medical 
doctor--the psychological and social aspects of the treatment 
with the neurophysiological. That you can now see as people 
reexperience an injury, they can track the pathways, neuronal 
pathways. It's just truly remarkable.
    That's something we bring to our warfighters and that they 
deserve, certainly in my heart. But it's something that's going 
to be good for society as a whole going forward. As I said, 
it's one of the few good things you can say about what is 
otherwise a shame, to have been at war for a decade.
    Senator Blumenthal. Thank you very much for those responses 
to my questions, and I just want to say in closing that there 
are other areas that I would have explored if I had more time, 
such as cyber security. I know others on the panel may mention 
those areas, but I would like very much to follow up with you 
on the IED and roadside bomb issue, as well as cyber security, 
and say in closing that I agree very much with the comments 
made by Senators Reed and McCain and very much welcome your 
receptivity to those areas as well.
    Thank you very much. I don't want to give you bad luck by 
congratulating you in advance, but I look forward to working 
with you once you're confirmed. Thank you.
    Dr. Carter. Thank you, Senator.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Congratulations, Dr. Carter, on this important nomination. 
I've observed your work over the years. I think you are capable 
and would make a fine Deputy Secretary. Based on what I know 
today, I intend to support your nomination.
    You are taking the lead in a very important time. You've 
had questions about spending. As the ranking member of the 
Budget Committee, I know just how dangerous our debt situation 
is. We are going to be working with you.
    I'll ask you one thing: Will you speak up and point out 
dangers and risks that might be incurred by certain reductions 
in spending that may be proposed? In other words, we need the 
best advice we can get from the Defense Department, and some 
things may sound good to us in Congress, but in reality, as the 
professional, it could be dangerous.
    Are you willing to defend the legitimate programs and 
policies that are necessary for a healthy Defense Department?
    Dr. Carter. Absolutely, and I will, Senator, absolutely.
    Senator Sessions. I believe Senator Levin asked you about 
deployments in Europe. It's just a matter that's come up again 
recently. I am of the belief it's difficult to justify 40,000 
troops in Europe at this point in time. For our economy it's 
better for those troops to be in the United States spending 
their wealth and creating tax growth for the local communities 
and jobs.
    Will you examine our force levels in areas like Europe and 
maintain the levels we need, but not maintain them at higher 
amounts than necessary?
    Dr. Carter. Absolutely. Secretary Panetta says everything's 
on the table.
    Senator Sessions. That's important to me.
    As you go about looking to defend the reasonable defense 
budget, we ought to ask ourselves how much the base budget has 
been increased over the last several years. It's about 2 
percent, is that correct? Do you have the numbers offhand, 
about how much increase DOD has had over the last 2, 3, 4 
years?
    Dr. Carter. It's a few percent in real terms, yes, has been 
the pattern over the decade or so.
    Senator Sessions. That was proposed in the President's 
budget, I believe, a little less than around 2 percent over a 
decade for each year's growth.
    Dr. Carter. Correct.
    Senator Sessions. We need to ask ourselves a few things. 
All of us want to contain spending, but I would point out--and 
maybe you could use this when you defend DOD--the non-defense 
discretionary spending in the last 2 years has gone up 24 
percent, not 4 percent like the Defense Department.
    As we talk about the Defense Department, I'm talking about 
the base budget, not the overseas contingency operations, which 
is the war cost. That's projected to drop from $158 billion 
this fiscal year to $118 billion, I believe, next fiscal year; 
is that right?
    Dr. Carter. Correct.
    Senator Sessions. Then have another drop, perhaps even 
larger, the next year.
    Dr. Carter. Correct.
    Senator Sessions. But the base defense budget that we rely 
on to defend America has to be examined and not unnecessarily 
weakened, in my opinion.
    In fact, the stimulus package of a couple of years ago 
alone spent more money than the entire cost of the Iraq war, 
almost $850 billion. It's more than that. We look at the new 
proposal for a stimulus package, $450 billion; that would 
provide a nice increase for the Defense Department over the 
next number of years. It's a lot of money.
    I guess what I say is if we set priorities for America, 
don't you think we need to know that the war costs are coming 
down significantly, but we need to focus on how much you can 
bring down the base defense budget, and there is a difference 
between the two?
    Dr. Carter. That's true. To your larger point, Secretary 
Panetta has said that we can't deal with the deficit situation 
solely by looking at discretionary spending, period. Certainly 
as we look at things in the defense budget, as I noted earlier, 
for the Budget Control Act target that we're given we're facing 
and will share with you some very difficult choices, all these 
things that we've been saying that are now on the table that 
haven't been on the table for a decade. That's going to be hard 
enough. When you get to the levels of the sequester and the 
manner of the sequester, it's just devastating.
    Senator Sessions. Thank you for saying that. I believe it's 
the responsibility of Congress to reduce spending. We're going 
to have to do that. But we need not to see the Defense 
Department as an easy place to take our savings. We have to 
have it smartly done and throughout our Government.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Dr. Carter, thank you for coming to see me a few days ago. 
I appreciate the opportunity to have a conversation with you. I 
want to just make sure of a couple things. With all due respect 
to my colleague from Alabama, actually, the 40,000 troops in 
Europe, we are on the same page here. We want to see some 
reassessment, not only in Europe, but around the globe, of 
where we have our resources and so forth.
    I want to make sure we put all the numbers on the table. 
$800 billion or so in Iraq, $400 plus billion in Afghanistan, 
but the real cost comes later, not in your Department, but in 
the Veterans Affairs, which will be in the trillions. The 
numbers, what I hear is $3, $4, $5 trillion over time, money 
that we will have to pay for these brave soldiers who served 
our country and have now needs and services through the 
Veterans Administration.
    The real cost of the war is in the trillions, not in the 
billions, in the trillions. We're here in the Armed Services 
Committee, but when I walk down the hall going to another 
meeting, which will be the Veterans Affairs Committee, we'll 
have this discussion and then we will blame the Defense 
Department for $800 billion. I want to make sure as people 
watch this, it's the big number here.
    I agree with my colleague--there are no easy places in the 
Defense Department. There's no easy places in the overall 
budget. We sit on the Budget Committee together and we are 
struggling, I would say, on a lot of fronts of how to resolve 
this. We have some tough calls.
    I hope as we sit down and work on the defense budget--I 
think you're going to find, as we've talked on the Medium 
Extended Air Defense System (MEADS) issue, on this European 
issue, there's a lot of opportunity, I think, for us to have 
good conversation about how to manage the Defense Department 
budget. But we have to not keep it in isolation of the other 
pieces to the equation, because when we go to war there are 
multiple components, because once we leave at some point 
Afghanistan, whatever remains in Iraq, State Department's going 
to be spending who knows what, because in Afghanistan they 
can't support their military. They have no capacity monetarily. 
Is that a fair statement? They can't write a check and pay for 
the defense that we're trying to build for them; is that fair?
    Dr. Carter. That is correct. At the moment we are bearing 
the lion's share of the cost for the Afghan National Security 
Forces as they are built up.
    Senator Begich. You define the lion's share, probably--I 
don't know what the percentage is--80 percent?
    Dr. Carter. That's about right, because the other partners 
are paying a share of it as well.
    Senator Begich. They're light on their commitments, that's 
my view, and that's a personal view. I just think we spend a 
lot in helping all these countries and some of these others 
need to lean up a little bit more.
    But let me leave that off to the side. First a couple quick 
questions. Law of the Sea Convention. Do you support that we 
need to be a signatory to the Law of the Sea Convention in 
order to put our place on the map?
    Dr. Carter. I do.
    Senator Begich. We talked about the Ground-Based Midcourse 
Defense System (GMD) and the importance of it. If confirmed, 
will you support the 2010 ballistic missile defense review, 
which established the GMD as a priority and ensures the program 
is resourced appropriately?
    Dr. Carter. Yes.
    Senator Begich. I think it's important from the national 
and international perspective, but also I'm biased--it's 
located in Alaska and we need to make sure the resources are 
there to keep it moving forward.
    What is your understanding of the Failure Review Board's 
conclusions and recommendations on the GMD at this point? I 
know there's been some current reviews.
    Dr. Carter. The Failure Review Board did take up the 
matter, I think it has a pretty good idea of both what happened 
and what the path to rectification is for that flight test 
failure.
    Senator Begich. I know we're in the first stage of this. 
You're always going to have failures at a higher percentage in 
the first stages of testing on anything, because you're trying 
to test it to determine how it works and you're going to have 
some failure. As you move the testing forward, you get a higher 
level of accuracy and competency. Is that fair?
    Dr. Carter. It is. In missile defense, it's particularly 
important because of the nature of the mission. It's the 
defense of the country against long-range missiles. You want to 
make sure things work the way they're supposed to. I work very 
hard with General O'Reilly, who runs the Missile Defense Agency 
and works for me on missile defense, on the test program to 
make sure we have tests that are realistic, that they're 
numerous enough, by the way that they're affordable enough, 
because testing's very expensive also, so that when we say the 
system performs at a given level we have some basis for saying 
that.
    Senator Begich. Very good. It's fair to say that--and this 
is my simplistic way to look at it--when we did the first kind 
of testing, it was hitting the missiles on the side; now we're 
testing it straight on. The missiles on the side had low 
accuracy at the beginning, but now they're very accurate in the 
sense of their capacity.
    Dr. Carter. Right.
    Senator Begich. Through testing and development over time; 
is that fair?
    Dr. Carter. It is. We changed the kinematics and geometry 
of the end game to make that more and more stressing.
    Senator Begich. Now we're trying to shoot head-on and that 
takes a little more accuracy and more testing. As we move 
forward we'll improve on that. Is that fair?
    Dr. Carter. That's right.
    Senator Begich. On energy security--there's a good story--I 
can't remember which newscast had it yesterday--in regards to 
our dependency on foreign oil and where we're engaged, 
especially in the Middle East, in defense activity. My argument 
is the issue of a national energy plan is not--I know a lot of 
people want to argue and debate over clean energy issues, cap 
and trade and all that. My issue is national security and 
economic security.
    Do you see the issue of energy from the Defense 
Department's perspective as an important piece of the equation, 
trying to figure out how to become more energy efficient? 
Because I know I think defense runs about $2 billion over 
budget because the price of fuel has gone up. But also, a lot 
of our casualties and fatalities are about moving fuel to the 
front line and defending that. Is that a priority, or where 
would you rank that as a priority?
    Dr. Carter. It has to be a priority, for all the three 
reasons you described. It costs money. It costs lives in a war 
if you are, for example, trucking fuel around. You put lives at 
risk to do that. Of course, it's a national necessity to 
strengthen our energy security. For all those reasons, it's a 
big deal for DOD.
    I will say that we established a post--and this was an 
initiative that originated in Congress--a Director of 
Operational Energy at the Assistant Secretary of Defense level. 
She reports to me. She's superb. She has made a big difference 
just in the short time she's been in office. She's looking at 
operational energy, which is the fuel efficiency of vehicles, 
the insulation of buildings in the field, and things like that.
    We also are the largest real property owner in the world, 
as has been mentioned earlier, and therefore our installations 
and our buildings and their energy security are a big deal for 
us also. In all these ways it has to be a priority for the 
Department.
    Senator Begich. Great. I appreciate the new staffing that 
you have in this area, because I think you're right on, that 
DOD has a huge role here, not only during times of war, but 
also, as you said, you're a large consumer of energy and how 
you can tweak that can make a big deal on the consumption.
    We briefly talked in our meeting, and I know you're working 
on it, and that's an updated commentary regarding the report on 
rare earth minerals. We'll look forward to seeing that.
    Last, because my time is up, is at some point, and maybe it 
can be down the road--I know we'll have some more discussions 
in regards to this, and that's on Afghanistan and Pakistan and 
your assessment. I've heard some already, but I know we'll have 
some more discussion, so I'll just leave that and I may send 
you some additional questions on that. Is that okay?
    Dr. Carter. I look forward to answering them, sir.
    Senator Begich. Congratulations. Thank you very much for 
spending the time with me a few days ago.
    Dr. Carter. Thank you, Senator.
    Chairman Levin. Thank you, Senator Begich.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you very much, Dr. Carter, for your prior service. 
You're very well qualified to take over this position.
    On Sunday we all remembered September 11, the 10-year 
anniversary of a horrible day in our Nation's history. Do you 
believe it's an accident that we haven't had another major 
incident on our soil, and would you agree with what former 
Secretary Gates said, which is that the ultimate guarantee 
against the success of aggressors, dictators, and terrorists in 
the 21st century, as in the 20th, is hard power, the size, 
strength, and global reach of the U.S. military?
    Dr. Carter. It's no accident, and I absolutely agree with 
what Secretary Gates said.
    Senator Ayotte. To echo what some of my colleagues have 
already said to you, if we fail to have the political courage 
in Congress to make the difficult decisions and look at the 
entire breadth of Federal spending, including reforming our 
entitlement programs, allowing the Defense Department 
sequestration to occur, do you think this will make us less 
safe as we look forward?
    Dr. Carter. Absolutely. When we say disastrous, that's 
exactly the disaster we mean.
    Senator Ayotte. I appreciate that. I do not believe that we 
should subjugate our national security for our failure to have 
political courage here in Washington and to address the 
fundamental drivers of our spending.
    I wanted to ask you about what Senator McCain asked you 
about with respect to Iraq. Have you spoken to Secretary 
Panetta at all about troop levels in Iraq?
    Dr. Carter. I have not, I mean except casually, because in 
my current responsibilities that is not a subject that I have 
responsibility for. The piece of it that I work on is the 
implementation. When decisions are made about that, I will be 
involved in the implementation of it, the logistics associated 
with whatever is decided.
    Senator Ayotte. Dr. Carter, as I understand your position 
you will be Secretary Panetta's right-hand man; is that right?
    Dr. Carter. If confirmed as deputy, yes.
    Senator Ayotte. If confirmed. In that capacity, you will be 
making recommendations to him based on your best assessment of 
what should be done on all major areas in DOD?
    Dr. Carter. Yes, absolutely.
    Senator Ayotte. I would ask you, with respect to the troop 
levels in Iraq, to make a pledge to this committee that you 
will give very serious and due weight and consideration to what 
our commanders in the military are saying on troop levels that 
we need to make sure that our troops are protected, that we do 
not undermine the hard-fought security we've gotten through 
Iraq, with many who have sacrificed for that security, based on 
political considerations? Will you make that assurance to this 
committee?
    Dr. Carter. Absolutely.
    Senator Ayotte. Because I'm very deeply concerned with what 
I heard about the 3,000 level of troops, just for the security 
of those who will remain, for our assets, for securing our 
embassy in Baghdad, when you look at what happened the other 
day in Afghanistan to our embassy. These are all missions that 
these troops will be tasked with. I appreciate that, and I 
remain concerned from what we're hearing in the press and I 
hope that it's not true.
    I appreciate your spending time in my office to meet with 
me prior to this hearing. One of the issues that you and I 
talked about and also you've been asked about today is 
acquisition costs and how we go about acquisition in DOD. My 
view, which I think I shared with you in my office, but I'll 
share again, is that from the limited time that I've spent on 
the Armed Services Committee that I think a third year law 
student could negotiate better terms for the United States of 
America than we have been negotiating at the DOD on behalf of 
the taxpayers of this country.
    What can we do to make sure that we are negotiating better 
terms for our country, better results, particularly when we're 
going to be asking you to have to implement these cuts, which 
will be very difficult?
    Dr. Carter. I remember that conversation. I appreciate the 
opportunity to have met with you. I remember that phrase as 
well. There's so much we can do to do better. I think the place 
I'd start, Senator, is with the people--we were talking about 
this earlier--our acquisition workforce, uniformed and 
civilian, who does this kind of work. I really meant it when I 
said it earlier: When we back them and we say, we expect you to 
negotiate a better deal than a third year law student could 
negotiate, they want to hear that. They want to do the right 
thing. They want to be backed up by us, and they know that the 
power of the purse resides ultimately in Congress. When they 
hear you asking for the same thing, it helps us.
    I said there are some new pages I think we need to turn in 
the acquisition picture, and I'll just mention a few of them. 
One is to try to create on a lasting basis a fast lane, learn 
the lessons of Afghanistan and Iraq for acquisition.
    Another one is in acquisition of services. You and I talked 
about this. We spend a lot for services, not just planes, 
ships, and tanks, but services as well. We are looking at the 
requirements system, which is what do you ask for in the first 
place and is that reasonable, is there feedback between the 
acquisition system and the requirements system.
    In all of these ways, I think--and this is something that 
Senator McCain was asking about--we need to keep turning the 
page here. There's a lot more we can do.
    Senator Ayotte. How can we ensure that we only reserve 
cost-plus contracts for the limited situations where they're 
warranted?
    Dr. Carter. That's my direction to our contracting people 
and they have to have a reason for deviating from that 
expectation. There are reasonable reasons for deviating from 
that, but we have gotten into a habit of doing way too many 
things on a cost-plus basis that it wasn't necessary to do on 
that basis.
    Senator Ayotte. How do we end the end-of-the-year 
spendfest? Because we have all heard, end of the fiscal year, 
people buying things we don't need just because they want to 
make sure that they spend all the money we have. I'm interested 
in creating incentives, whether it's through legislation here, 
I'd like you to create incentives, to make sure that does not 
continue, because with limited dollars we just can't continue 
to buy things we don't need.
    Dr. Carter. I agree with you 100 percent, and it is really 
about incentives, creating the right incentives, so the 
incentive is not to spend it all by the end of September.
    Senator Ayotte. Do you have any ideas about what incentives 
you think would be effective?
    Dr. Carter. Yes, there are a number of things. First and 
foremost--and I had this discussion directly with our program 
managers and program executive officers, and I say: You will be 
judged by the value you deliver to the taxpayer, not by the 
size of the budget you're able to secure through the budget 
process. We will consider you a good program manager and not a 
failed program manager if you're returning budget to the 
Treasury at the end of the year.
    The other thing you have to do is say to the manager of a 
portfolio of programs, say a program executive officer: If you 
manage to be efficient in one area of your spending and you're 
having troubles in another, we'll give you a break where you're 
having trouble and you can reallocate some of that funding to 
where it would make another program more efficient, or if you 
save money in this way we'll help you buy more of something 
else, buy more capability.
    You have to make people understand that by saving money in 
one area they can serve their Service better, fix a broken 
program, and so in that sense they're sharing in the proceeds 
of good management.
    Senator Ayotte. Thank you, Dr. Carter. I look forward to 
working with you on these issues and I know many others who 
serve on the committee as well, so we can improve this process.
    My time is up, but I also wanted to mention the Commission 
on Wartime Contracting: half of our money is going to 
insurgents. Senator Brown and I have a piece of legislation I 
hope you'll support, to cut off funding as soon as possible 
when our money goes into enemy hands.
    Thank you so much for testifying today and we very much 
appreciate your service.
    Dr. Carter. Thank you, Senator.
    Senator McCaskill [presiding]. Dr. Carter, I'm sitting in 
briefly for the chairman while he's away, and I love it that 
Senator Ayotte ended with the Commission on Wartime 
Contracting. You are well aware from many conversations we've 
had over the last 4\1/2\ years how high up on the priority list 
this has been for my term on this committee.
    Have you had a chance to read the report from the 
Commission on Wartime Contracting yet?
    Dr. Carter. I have, and I've talked to the commissioners on 
a number of occasions about the report. My general impression 
is it's extremely well done. We've been working with them side 
by side. I think we were trying to work off the same list of 
recommendations that they have. It points to a problem that is 
a very serious one, and I thought it was a good piece of work, 
with great benefits to us, insights that we could use.
    Senator McCaskill. Is there anything in the report that you 
disagree with? Is there anything that you took issue with?
    Dr. Carter. There are a few of the recommendations--we 
haven't finished assessing this final report, which contains 
so-called strategic recommendations, which are more general. We 
haven't really had a chance to assess them. In fact, I 
testified before the commission with respect to their two 
interim reports.
    Senator McCaskill. Right.
    Dr. Carter. I forget what the numbers are, but they had in 
the neighborhood of 70 to 80 specific recommendations, and I 
think we adopted somewhere, I want to say, between 60--I'll get 
you the specific numbers and the details at any level you want. 
But almost all of their recommendations made a lot of sense and 
were things that we either were doing or should have been 
doing.
    [The information referred to follows:]

    This report included 15 strategic recommendations, of which 11 were 
Department of Defense (DOD)-specific recommendations and 4 were 
directed at Congress. As for the 11 DOD-specific recommendations, we 
embrace all of them in principle and are already in the process of 
implementing some of them.

    Senator McCaskill. I will look forward to any, particularly 
any issues that you don't completely agree with, because I 
think it's important that we figure out whether we all are on 
the same page going forward with the commission's work. This is 
going to be a subject of a hearing in the full Committee of 
Homeland Security and Governmental Affairs next week, and then 
the Readiness and Management Support Subcommittee of this 
committee, we're going to do some work on it, too, and perhaps 
the Contracting Subcommittee of the Homeland Security and 
Governmental Affairs Committee also.
    There's going to be several follow-up opportunities to work 
on these recommendations over the coming weeks. I would really 
like to know if there's anything there that you are not 
completely comfortable with, because if there is I think we 
have to sort that out at the beginning, because my job now is 
to hold you accountable to make this work of this Contracting 
Commission be real to our military.
    I think that we have two problems on contracting. One is 
contracting within the big Pentagon picture and the other is 
contingency contracting. They have different sets of problems. 
Now, many of them are kissing cousins, but they are different 
sets of problems.
    The biggest problem with the contingency contracting is an 
overreliance on contractors in order to meet the mission and 
the supremacy of the mission in terms of shortcutting good 
contracting practices and a culture that is all about that. The 
view: I want what I want when I need it in theater; I don't 
want to listen to any acquisition personnel tell me I can't 
have it.
    It is anecdotal, but it is true that one of the major 
generals over contracting in Kuwait when I visited there--and a 
member of your staff was with us--actually said to me: I wanted 
three kinds of ice cream in the mess hall yesterday and I 
didn't care what it cost.
    Now, that is obviously problematic. We all want our 
soldiers in theater to get ice cream. We want them to get a 
variety of kinds of ice cream. But we have to care what it 
costs. It's that culture that I think your leadership at the 
very top is going to be absolutely essential on. I wanted to 
make sure we find out if there is any place that we disagree.
    The other big issue about contingency contracting is 
sustainability. I am very uncomfortable with the analysis 
that's going on in theater about sustainability of the money 
we're spending. I'm even more concerned that, for the first 
time, we have now morphed the Commander's Emergency Response 
Program (CERP). CERP began as something that was supposed to be 
for the on-the-ground commanders to be able to use to win 
hearts and minds in small projects. We now have an Afghanistan 
Infrastructure Fund in the DOD budget for the first time.
    We are actually going beyond what CERP was ever intended to 
be and we're building infrastructure in DOD. I'm not aware that 
we ever had a policy debate about whether that was a good idea 
or not. I would love to know why we think that's a good idea, 
and is this just going to be in contingencies or are we going 
to start taking this responsibility away from the State 
Department and U.S. Agency for International Development? I 
would love your follow-up thoughts on that.
    Also, Dr. Carter, about this Iraq Infrastructure Fund, it's 
$400 million. That's not a huge amount of money now, but 
neither was CERP when we started. Neither was CERP, and it 
obviously has grown significantly.
    Can you illuminate for me why they felt that they had a 
need to create an infrastructure fund in addition to the CERP 
funds that were being used for projects, road-building and 
community redevelopment?
    Dr. Carter. I would be pleased to, Senator. I'd like to get 
back to you on that particular issue in some detail because 
it's partly a policy issue as well.
    Senator McCaskill. Okay.
    [The information referred to follows:]

    As there is no Iraq Infrastructure Fund, the question appears to be 
focused on the Afghanistan Infrastructure Fund (AIF). In fiscal year 
2011, Secretary Gates and Secretary Clinton requested that $400 million 
be appropriated to the Department of Defense (DOD) for the AIF to 
execute critical infrastructure projects in support of the 
counterinsurgency strategy in Afghanistan. The AIF is designed to 
bridge the resources and capabilities and serve the missions of both 
departments in supporting projects critical to counterinsurgency 
objectives and economic development such as electricity projects in 
Kandahar. The AIF projects are developed jointly with the Department of 
State.
    With regard to the question of an overlap with the Commander's 
Emergency Response Program (CERP) mission, the CERP is a DOD program to 
enable military commanders to respond to urgent, small scale, 
humanitarian relief and reconstruction requirements within their areas 
of responsibility. The DOD reduced the fiscal year 2011 CERP request by 
$400 million to resource the AIF.

    Dr. Carter. If I could just comment on your general point, 
you're absolutely right, contingency contracting and all the 
rest of the contracting we've been talking about, JSF and so 
forth, present a different set of challenges. You have it in a 
nutshell that it's war, so people want to move quickly, and 
very understandably.
    What we need to do is not make it a choice between 
appropriate controls and contracting discipline and 
responsiveness to the warfighter. That's where I think the 
Commission on Wartime Contracting said we've fallen down over 
the last decade. We're getting better. We're trying to get 
better.
    With respect to the commission, I absolutely will get back 
to you on it on anything we disagree with. I know they have 
some numbers in there that we're trying to look at. I can't 
validate their numbers, but I can validate the overall accuracy 
of the report in the sense that any level of waste, fraud, and 
abuse is unacceptable, and all of the recommendations they've 
made, as I said, we're working off the same list.
    Senator McCaskill. We built a $300 million power plant in 
Kabul that is not fully operational and it's too expensive for 
them to use. If anybody tries to tell me there was a 
sustainability analysis done before we spent $300 million, I'd 
like to know who takes ownership of that, because I find it 
incredibly hard to believe that anybody looked at the long-term 
sustainability of a high tech, dual fuel power plant that's too 
expensive and, frankly, beyond the capability of the Afghan 
people to actually use it in a way that it was intended.
    That's a lot of money, and that's just one example, and 
unfortunately I could list too many. I would like you to 
address the sustainability analysis. I would like to see that 
in war colleges throughout the training of our amazing leaders 
in our military we begin to embrace contracting as part of that 
training, because we are never going to be able to get away 
from contingency contracting. The sooner these leaders know 
that's very important, the better.
    Let me very briefly, because I'm out of time. If you're 
going to contrast two acquisition programs, we have the poster 
child of bad with the JSF and the poster child of good with the 
Super Hornet. Now, factually that's great for me because I 
happen to care a lot about the Super Hornet in some of this, 
obviously. It would be obvious to point out that some of this 
is parochial.
    But there's no better example, we've never had a program 
more out of control, more over cost, than the JSF. Meanwhile, 
the Super Hornet has always delivered, on time, and now we're 
down to a cost of $52.7 million fly-away, and today's estimate 
on the JSF is $113 million, so half the cost.
    I just have one simple question: Given the Navy has 
publicly stated that the Super Hornet can undertake virtually 
any combat mission, is it your opinion that the Super Hornet 
remains a viable alternative based on the Navy's tactical 
needs?
    Dr. Carter. You're right that the performance of the Super 
Hornet program is commendable. Obviously, we're trying to 
manage in a direction so that JSF will one day replicate that 
kind of performance. I said in the Nunn-McCurdy certification 
this summer that no alternative meets the joint requirement as 
it is now spelled out for a fifth generation fighter but the 
JSF.
    Finally, we have in the last couple of years procured 
additional Super Hornets as we have been forced to delay the 
onset of production ramp-up for the JSF.
    Senator McCaskill. I have some more specific questions 
about the Super Hornet versus the JSF and I will get those for 
the record for you.
    Thank you very much, Dr. Carter. My time has expired.
    Chairman Levin [presiding]. Thank you very much, Senator 
McCaskill.
    Senator Graham.
    Senator Graham. I'd like to associate myself with Senator 
McCaskill's comments about the Super Hornet. I have some 
questions for you, too. I think it is a viable airplane at a 
good price and we ought to make sure we have an adequate 
inventory until we get the JSF in a better situation.
    Let's see if I can summarize your testimony when it comes 
to defense spending. Is your understanding and your belief and 
that of Secretary Panetta that if Congress were to follow 
through with the $400 billion cuts that are being asked by the 
administration, President Obama, to the defense budget and we 
took $600 billion more if the super committee fails to do their 
job, a trillion dollars, it would be devastating to the Defense 
Department? Is that correct?
    Dr. Carter. That's correct.
    Senator Graham. We would take the finest military in the 
history of mankind and gut it, is that right?
    Dr. Carter. Yes. The word Secretary Panetta uses is----
    Senator Graham. Do you have any idea why we would do that 
in Congress? What were we thinking? I don't know. I'm asking 
you because I can't think of a good reason to do that. Is the 
world that safe?
    Dr. Carter. The world's not that safe. We still are looking 
in our defense strategy to be ready for this very wide range of 
threats and contingencies that the world presents to us. We 
don't see that ending at any time in the future. We don't see 
anyone else in the world being able to assume the leadership 
role that the United States has. We never ever again want to 
have a hollow military.
    Senator Graham. We're on the path to do all those things if 
we follow through with this potential proposal?
    Dr. Carter. I think that's what Secretary Panetta means 
when he used the word ``disastrous''.
    Senator Graham. I think it's just completely brain-dead for 
us even to consider this, and we're not going to let it happen. 
You just tell the men and women in uniform we're going to wake 
up and get some good common sense here pretty soon.
    Iraq. Does it matter how it ends in Iraq in terms of our 
national security interest?
    Dr. Carter. Absolutely.
    Senator Graham. On a scale of 1 to 10, how important is it 
for Iraq to end well, become stable, and not be a satellite 
state of Iran?
    Dr. Carter. It's a 10, after all we've put into it.
    Senator Graham. If it's a 10--and I couldn't agree with you 
more--we ought to be looking at resourcing it as a 10. Do you 
agree with that?
    Dr. Carter. The decisions haven't been made about 
resourcing----
    Senator Graham. Do you agree with the concept that if it's 
a 10 we ought to resource it consistently?
    Dr. Carter. Absolutely.
    Senator Graham. Let's talk about Afghanistan. Does it 
matter how that ends?
    Dr. Carter. It does.
    Senator Graham. It does. It matters a lot, because that's 
the place where the attacks of September 11 were planned; is 
that correct?
    Dr. Carter. Absolutely.
    Senator Graham. What would happen after all of these years 
and all the blood and treasure and mistakes we made, if the 
Taliban were somehow able to come back? What would it mean to 
our national security interests down the road?
    Dr. Carter. It would be very serious.
    Senator Graham. Do you believe we can prevent that?
    Dr. Carter. I do.
    Senator Graham. I think we have a plan to prevent it. The 
only thing I worry about is that we're going to be penny wise 
and pound foolish.
    I know you very well, and I know that you and Secretary 
Panetta are going to give us the unvarnished truth. As we 
transition to Afghan control, please realize, to the committee 
and those who are listening, that how it ends does matter.
    The strategic partnership agreement that's being negotiated 
with the Afghan Government, are you familiar with the concept?
    Dr. Carter. I am.
    Senator Graham. Do you support the idea that post-2014 we 
would have an enduring relationship with the Afghan Government 
and people?
    Dr. Carter. Yes, I do.
    Senator Graham. It is in our national security interest to 
have a political relationship with the Afghan Government and 
people; do you agree with that?
    Dr. Carter. Sure.
    Senator Graham. Do you agree that it would be in our 
national security interest to have an economic relationship 
with the Afghan people?
    Dr. Carter. Yes.
    Senator Graham. Do you agree it's in our national security 
interest to have a military relationship with the Afghan 
Government, security forces, and people post-2014?
    Dr. Carter. I do.
    Senator Graham. Do you agree with me that training of the 
Afghan army will be a need that goes past 2014?
    Dr. Carter. I will.
    Senator Graham. Do you agree with me that General Caldwell 
is one of the unsung heroes of this war by creating a training 
regime that is more efficient and more productive?
    Dr. Carter. Double yes.
    Senator Graham. Do you agree with me that the 
counterterrorism component that exists today will be needed 
past 2014 to make sure al Qaeda and Taliban do not regenerate?
    Dr. Carter. Yes.
    Senator Graham. Do you agree with me that the Afghan 
Government has virtually no air force and they will need some 
air capability?
    Dr. Carter. Yes, and that's part of----
    Senator Graham. Do you agree with me that the intelligence-
gathering capability of the United States is second to none?
    Dr. Carter. Yes.
    Senator Graham. That the Afghan Government and the Afghan 
security forces would benefit from that assistance?
    Dr. Carter. Yes.
    Senator Graham. Do you agree with me that we need to embed 
some American soldiers in the future to make sure the Afghan 
army develops in a mature professional fashion?
    Dr. Carter. If Afghanistan agrees to that, of course.
    Senator Graham. All of this is contingent on them asking.
    Dr. Carter. You bet.
    Senator Graham. Do you agree with me it would be in our 
national security interest to leave behind a military footprint 
that would have American air power available to the Afghan 
security forces and counterterrorism units to suppress the 
Taliban as far as the eye could see?
    Dr. Carter. I think that's desirable, but of course we 
haven't begun to address the issue----
    Senator Graham. But if the Afghan people through their 
government would ask, it would be in our national security 
interest to say yes?
    Dr. Carter. It would.
    Senator Graham. Would you agree with me that if we had such 
an enduring relationship, it would be a signal to Iran that 
needs to be sent?
    Dr. Carter. Yes.
    Senator Graham. Do you agree with me that the Iranians are 
trying to develop a nuclear program, not for peaceful purposes?
    Dr. Carter. That's my understanding, yes.
    Senator Graham. Do you agree with me that it would change 
the world as we know it if they were successful?
    Dr. Carter. It's very undesirable to let Iran go nuclear.
    Senator Graham. Do you believe that we're on a collision 
course with Pakistan?
    Dr. Carter. I can't say that. We work very closely with 
Pakistan in some areas. Obviously, there is great frustration 
in some other areas on both sides.
    Senator Graham. Would you agree that the relationship is in 
a new phase, very problematic?
    Dr. Carter. It is certainly problematic.
    Senator Graham. Do you agree that a lot of the IEDs coming 
into Afghanistan are made from products in Pakistan?
    Dr. Carter. They are.
    Senator Graham. Do you agree that it is now time for the 
Pakistani Government to step up and make a decision as to who 
they are and what they want to be?
    Dr. Carter. Certainly as regards terrorism and as regards 
weapons crossing the border from Pakistan to Afghanistan, we 
need their help. I mentioned that earlier with respect to 
ammonium nitrate, but it's across the board. They need to step 
up.
    Senator Graham. Would it be in our national security 
interest to open up transportation routes in the north to get 
supplies and equipment into Afghanistan without having to send 
everything through Pakistan?
    Dr. Carter. It is and we are.
    Senator Graham. The Uzbekistan Government, I met with them. 
They're willing to expand the relationship with the United 
States. Do you think that is in our national security interest 
to do so?
    Dr. Carter. It is. They have been part of that northern 
resupply system and----
    Senator Graham. It's my understanding that the 
administration is negotiating with the Uzbekistan Government to 
dramatically expand that supply capability and that we would 
need some waivers from this committee to support the Uzbekistan 
security forces. Secretary Panetta has written me a letter 
suggesting he supports that. Would you support that?
    Dr. Carter. Certainly if Secretary Panetta supports it, I 
would. I understand enough about the northern distribution 
network to understand its importance.
    Senator Graham. This is a critical area for us regarding 
Afghanistan. I want to let the committee know, Mr. Chairman, 
that we're on the verge of a major breakthrough in terms of 
northern supply and the committee will need to come up with a 
consensus about how we can help the Uzbekistan Government. Some 
waivers would be necessary to sell them equipment, monitoring 
their human rights problems in the past.
    I think you're an ideal candidate for this job. Most of the 
defense budget is personnel costs. When you want to reform 
retirement, count me in. I want to do it in a humane, generous 
way, but it needs to change. When you want to adjust TRICARE 
premiums for people like myself who is going to be a retired 
colonel one day, count me in, because even though you serve and 
you sacrifice you still have, I think, the ability to serve in 
retirement. We're not going to ask more of the retired force 
than they can give, but change has to come.
    I think you're an ideal choice to be Deputy Secretary of 
Defense and I look forward to supporting you.
    Dr. Carter. Thank you, Senator.
    Senator Cornyn. Mr. Chairman, may I make a brief UC 
request?
    Chairman Levin. You certainly can. Before you do that, I 
want to just say--this retirement announcement as a colonel, 
this precludes the possibility, which is there apparently, of 
you being promoted to a general.
    Senator Graham. We have enough challenges in the world. 
[Laughter.]
    Chairman Levin. Senator Cornyn.
    Senator Cornyn. I'm grateful, Mr. Chairman. I want to say 
to Dr. Carter how much I appreciated him visiting with me. I 
support his nomination.
    I'd like to make a unanimous consent request that two 
letters that I have written to him and two letters he's written 
back to me relating to the JSF be made part of the record.
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cornyn. I'm grateful to you. I have a conflicting 
appointment, so I won't be able to stay. But thank you for 
that.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Dr. Carter, thanks for taking the time to come visit with 
me recently. I appreciated our discussion. In that discussion, 
as we discussed, you know that I am a strong supporter of the 
F-35B. It does provide the Marine Corps with the capability to 
launch from the large-deck amphibious ships, refuel in forward 
operating sites. As the Commandant of the Marine Corps, General 
Amos, has said, if we lose the F-35B there is no plan B for 
fixed wing aircraft on large-deck amphibious ships, and this 
would drastically cut our Nation's capability to project power 
in remote environments.
    Recently, when the F-15 airplane crashed in Benghazi, 
Libya, the AV-8B fighter jets conducted a tactical recovery of 
aircraft and personnel mission in Libya. The rescue forces took 
off from two amphibious assault ships in the Mediterranean. 
When the aircraft went down, there were no aircraft carriers in 
the area.
    I want to work with you to get the F-35B off probation and 
resolve the engineering issues inside the weight limits and 
financial boundaries. The term ``probation'' has a negative 
connotation. My question is, what kind of effect does the F-35B 
being on probation have on the Marine Corps's ability to 
transition to a fifth generation fighter? Does it affect the 
industrial base by putting suppliers on notice and increasing 
production costs?
    Dr. Carter. The F-35B is everything you said. Namely, there 
is a firm requirement for it; the attractiveness of the short 
takeoff and vertical landing (STOVL) variant of the F-35 is the 
ability to take off from the smaller decked amphib ships; and 
General Amos has indicated that's a capability that he very 
much wants to have. That's why Secretary Gates, who originated 
the fact of and also the term ``probation'' for F-35, the 
instructions he gave us were to be success-oriented, and as the 
managers of the program we are. That is, we are trying to work 
through the engineering issues from which the concept of 
probation arose.
    Just to recap them briefly, it's a complicated variant 
because of its short takeoff and vertical landing nature, and 
therefore does present some engineering issues that the other 
variants don't. Those surfaced in flight tests and we know what 
they are and we're working through the engineering fixes to 
them. We can't rule out that additional ones will arise in 
flight tests. You can never say that. But we know what they are 
and we have a schedule for resolving them.
    What Secretary Gates said at the time was: Resolve those 
issues and then we'll look at the cost impact and the weight 
impact associated with those engineering fixes and decide where 
we go with STOVL from that point. My focus has been on 
resolving those issues. That's where Admiral Venlet's focus is. 
We are success-oriented. We will work through those engineering 
issues and get to that point.
    Senator Hagan. The F-35B I understand has performed very 
well in operational testing so far this year, and I think 
there's quite a few number of tests taking place next month. If 
the variant performs successfully during these sea trials next 
month, would you consider lifting the program from probation?
    Dr. Carter. General Amos and I talk about this all the 
time--probation is--I'll borrow a phrase from elsewhere--
conditions-based. In other words, we told Secretary Gates that 
it would take us around 2 years to work through the engineering 
issues to which I referred, and we're on schedule to do that 
within those 2 years. If we resolve them within the 2 years, 
then we have done what he said probation was supposed to do.
    There's nothing magic about 2 years. There is something 
magic about resolving the issues.
    Senator Hagan. I agree with that. But if they get 
resolved--I think it's been a year now. If they get resolved, I 
think it would be important to the industrial base to be sure 
that probation would be removed as quickly as those issues are 
taken care of.
    I wanted to talk about the science and technical talent. 
DOD and the defense industry are facing challenges seeking new 
graduates with advanced degrees in scientific and technical 
fields to help develop complex military systems. Some of these 
challenges include Federal hiring and/or pay freezes, budgetary 
pressures leading to declining numbers of new defense programs, 
recruiting issues stemming from graduates being more interested 
in the commercial sectors related to information technology and 
energy versus the traditional defense industrial sector, such 
as aerospace or naval shipbuilding.
    What is the Department doing to ensure that it as well as 
the defense industrial base is able to have access to future 
scientific and technical talent, and what is the Department 
doing to recruit and retain the best and the brightest 
scientists and engineers, and how do you measure the 
effectiveness of these efforts? I just think it's critically 
important that we focus on this at DOD as well as, obviously, 
in our education system with science, technology, engineering, 
and math curriculum that is so critically important in our 
country today.
    Dr. Carter. It's critically important. Next to and after 
the superb nature of the men and women we have in uniform, the 
thing that makes our military the greatest in the world is the 
technology within it. There is a challenge associated with the 
globalization of the technology base for defense. It's no 
longer the case that all new technologies emerge in this 
country or in association with the defense technology base.
    We need to reach out and gather those ideas and those 
people who might otherwise end up not in defense and attract 
them into defense. We're doing a lot to strengthen the science 
and technology workforce.
    I think another point I'd make is that as we go into the 
budget situation that we're facing, we've talked about 
difficult choices; one of the difficult choices is between the 
present and the future, how much you invest in the present and 
how much you invest in the future. I think one of the things 
that we're going to need to do is make sure that we protect 
those investments in science and technology that will allow us 
10 years from now, 20 years from now, to have the skill base 
and the new ideas that will constitute the military of the 
future and make sure that we don't mortgage the future.
    That's the kind of balancing that we're trying to do in the 
comprehensive review, present versus future, even as we're 
trying to balance different kinds of threats. It's a very big 
effort within the acquisition, technology, and logistics 
department.
    Senator Hagan. You said that you're doing quite a bit in 
this area, especially from recruiting. Can you give me any 
concrete examples?
    Dr. Carter. Yes. Let's see. I'll take the Defense Advanced 
Research Projects Agency (DARPA) for example. We've made a lot 
of progress there in the last few years, and I credit the 
current director for doing that, in making it more attractive 
for people who are first-rate technical people to come in, 
spend some time in DARPA, make their contributions, get the 
feel of the excitement and the commitment of national defense 
as a place to apply their scientific talents. We've made a lot 
of progress there, but all of our technical managers are doing 
that.
    Senator Hagan. Thank you. I've worked quite closely with 
Dr. Duke and I think she is definitely doing a very good job at 
that example.
    Dr. Carter, thank you and thank you for your family, for 
your participation in I know what's going to be a nominee that 
will be confirmed very swiftly. Thank you for doing this.
    Dr. Carter. Thank you, Senator.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you also for taking time to come and visit with me. I 
appreciate it. I know we briefly talked about your thoughts 
about the Department's willingness to invest in the Reserve 
component, Guard and Reserve, to see how we can maximize those 
valuable dollars and maybe shift some of the responsibilities 
in training and resources to the Guard and Reserves. What's 
your position on that?
    Dr. Carter. The Guard and Reserves, we couldn't have done 
what we've done over the last 10 years without the contribution 
of the Guard and Reserves. I know that they've been asked to do 
things that were not foreseen at the time that many of them 
joined the Guard and Reserves. You can go, and I do, to theater 
and visit a unit and you can't tell whether that's an Active 
Duty unit or a Guard or Reserve unit. They're a critical part 
of the total force and their continuing vitality, like 
everything else that we're trying to protect, is an important 
part of this comprehensive review we're conducting.
    Senator Brown. I know you have some real economic and 
financial challenges, obviously, with the dollars that are so 
valuable. I'd like to just follow up with Senator McCain and 
Senator Levin's comments regarding the cost growth and delays 
on the JSF program, which are not limited to the airframe only. 
They also relate to the engine, which has increased from $385 
million to $2.3 billion. That's nearly a 500 percent increase.
    Yet DOD continues to say it's happy with the engine it has. 
I'm wondering, do you remain pleased with the cost, 
development, testing, and performance of the F-135 engine?
    Dr. Carter. I monitor the F-135 engine closely. No, I can't 
say I'm completely satisfied with that. I'm not completely 
satisfied with any part of the F-35 that's showing cost growth 
and the F-135 engine has. I will say that, like with everything 
else on the JSF, we are working very hard to manage to a better 
result, and those performing the work on the engine, like those 
performing the work on the airframe, are joining us in trying 
to restore affordability.
    Senator Brown. I noted in your testimony that you indicated 
that competing subsystems and support would be put on the 
table. Does that include the self-funding proposal being put 
forth on the engines?
    Dr. Carter. With regard to the self-funding proposal by 
General Electric (GE) and Rolls-Royce for the F-136 engine, I 
understand that a meeting was scheduled between GE and the 
Deputy Secretary of Defense, Deputy Secretary Lynn, and also 
the Air Force acquisition executive, to get more insight into 
that concept. Those meetings haven't occurred or haven't been 
scheduled.
    But if I'm confirmed as Deputy Secretary, I'd be happy to 
have those meetings and to learn more about the so-called 
``self-funding'' proposal. I do have to say I have real 
concerns about that proposal on the basis of what I've heard so 
far. But again, if confirmed, if that meeting hasn't been held 
by the time that Secretary Lynn would leave, I'd be happy to 
have that meeting, because any time one of our industry 
partners has an idea on affordability I'm very open to ideas on 
affordability and would be willing to listen to that.
    Senator Brown. I noted in some of the letters I received 
from other Senators to you and in our conversation, you 
indicated that you would keep an open mind and you would meet 
with that leadership team to discuss all options. Is that still 
your position?
    Dr. Carter. It is. By the way, I have to meet with them on 
other things that they do for us also. GE does a lot for us--a 
number of different engine types, sustainment, research and 
development (R&D). We value their contribution to the military 
aircraft engine business.
    Senator Brown. If confirmed, will you have the authority to 
permit the self-funding to go forward, and obviously as a 
result will they be allowed to have access so they can in fact 
move forward with it?
    Dr. Carter. Until I know more about it, I don't know what 
authorities would be required and whether they would require 
additional legislative authority.
    Senator Brown. I had the honor of being able to go over to 
Afghanistan on duty and serve for a short time. The most 
talked-about issue was the proposed cut in military pensions 
among current servicemembers. Could you talk about that a 
little bit and say what your position is, not only for the 
people that are presently serving and have already done their 
20 years and are eligible, but as to how it affects Active, 
Guard, and reservists?
    Dr. Carter. I think two critical things on that that 
Secretary Panetta's made clear. One thing is that, like 
everything else, compensation and benefits has to be on the 
table, but--this is the only ``but'' he's made to that general 
guidance to us--don't break faith with the force. That would 
mean that significant, abrupt changes that would affect the 
understanding and the bond or deal made between service people 
and us when they entered service, that is not somewhere he 
wants to go. He has taken that off the table. He calls it 
``breaking faith''.
    Senator Brown. It's interesting you say that, because 
before people knew I was a Senator, I was just there as a 
lieutenant colonel and we were just talking as soldiers, and 
without even blinking, sir, Mr. Chairman, that was the talk in 
every breakfast, lunch, and dinner that I sat down with the 
troops. Then when they found out I was a Senator, it was groups 
of people coming up and saying: What are you guys trying to do? 
I'm like, I'm not trying to do anything; I'll speak to the 
Secretary and, obviously, you, because I agree with you, there 
is a real dependency on them doing their job and them depending 
on getting their fair share once they've done their job and 
having that commitment honored. I appreciate that.
    One final question. I'm trying to figure out the numbers a 
little bit. On the MEADS program, the development of this 
program is governed by the international memorandum which 
everybody has been talking about for months and months. It 
specifies a maximum national commitment limit of $2.3 billion. 
Our appropriated funds from fiscal year 2004 to fiscal year 
2011, however, total $2.98 billion, and that number exceeds the 
MEADS maximum national commitment limit of $2.3 billion.
    Can you help me understand the numbers, what the difference 
is?
    Dr. Carter. I will have to get back to you on those 
specific numbers.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Brown. That's fine.
    Dr. Carter. Because I'm not familiar with those specific 
numbers. But I will say some that I am familiar with that may 
be helpful. The memorandum of understanding, which is the 
extant international agreement that you referred to, would 
under our proposal which is before you take about another $800 
million to complete the proof of concept part of that program.
    Senator Brown. Yes, to get out of the deal, basically, we 
have to pay $800 million.
    Dr. Carter. The alternative would be to terminate, which 
costs a comparable amount. Given those alternatives, we have 
asked for the funding to complete the proof of concept.
    Senator Brown. Maybe we can follow up, Mr. Chairman, with a 
question for the record which we'll submit to you, and just see 
where that discrepancy is. Maybe we don't have the right 
numbers. I just want to make sure I understand it.
    Thank you for your time and good luck.
    Dr. Carter. Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Just a few additional quick questions from me. On cyber 
security, there was a commitment by General Alexander when he 
was confirmed to command the newly created Cyber Command that 
there would be a major effort to address a whole host of cyber 
security issues, and it was under way or to be completed by the 
end of calendar year 2010. The National Defense Authorization 
Act for Fiscal Year 2011, already law, required a report from 
the Secretary by March of this year. We don't have the report 
that we're owed on cyber security issues. Are you aware of that 
and will you commit to get us that report promptly?
    Dr. Carter. Mr. Chairman, I'm not aware of the status of 
that report, but I certainly commit to you that, if confirmed, 
I'll make sure it's completed.
    Chairman Levin. Promptly?
    Dr. Carter. Promptly.
    Chairman Levin. Do you support the President's decision to 
withdraw 30,000 U.S. surge forces from Afghanistan by next 
summer?
    Dr. Carter. I do.
    Chairman Levin. How important is it to the success of the 
counterinsurgency campaign in Afghanistan that we maintain the 
process of transitioning responsibility to the Afghan Security 
Forces for their own security?
    Dr. Carter. Very important.
    Chairman Levin. Do you also agree it's essential for the 
Afghan Government to provide services for their people in order 
for the mission to prevent Taliban recontrol of Afghanistan to 
succeed?
    Dr. Carter. Yes.
    Chairman Levin. Do you agree that it's in the security 
interest of the Afghans that their government end corruption?
    Dr. Carter. Yes.
    Chairman Levin. Do you agree that the reconciliation or the 
reintegration of lower level Taliban be continued and that it 
is an important part of success of the mission?
    Dr. Carter. Yes.
    Chairman Levin. Now, relative to Pakistan, do you agree 
that it's important that Pakistan address the Haqqani Network's 
use of their soil as a safe haven to attack us?
    Dr. Carter. Yes.
    Chairman Levin. Relative to Iraq, General Odierno said 
yesterday or the day before that we must avoid the appearance 
of leaving a large occupation force in Iraq. Do you agree with 
General Odierno?
    Dr. Carter. I do.
    Chairman Levin. Secretary Carter, to you, your family, your 
wife, your two children who are here--I don't think they 
probably learned anything new because they know you very well. 
They know your competence, they know your steadiness, and we've 
learned that, too, over the years, all of us on this committee. 
We look forward to a prompt confirmation, and we will stand 
adjourned.
    [Whereupon, at 11:52 a.m., the committee adjourned.]

    [Prepared questions submitted to Ashton B. Carter by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see a need for modification of any Goldwater-
Nichols Act provisions at this time. The Act has served the Department 
and our Nation well, fostering a spirit of jointness that has enhanced 
the Department's capabilities to respond when called, such as in 
Operation Enduring Freedom. If confirmed, I will continue to consider 
this issue and will make proposals for modifications if and when 
required.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.

                             RELATIONSHIPS

    Question. What is your understanding of the relationship between 
the Deputy Secretary of Defense and each of the following?
    The Secretary of Defense.
    Answer. The Deputy Secretary performs duties as assigned by the 
Secretary and must be able to perform the Secretary's duties when the 
Secretary is absent. The Secretary and the Deputy work closely together 
to develop defense strategy and policy. The Deputy Secretary serves as 
the Department's Chief Operating Officer (COO) and focuses primarily on 
the daily activities of the Department, including financial management, 
acquisition, and personnel policy matters (both civilian and military) 
and on the implementation of policy and strategy decisions.
    Question. The Under Secretaries of Defense.
    Answer. The Deputy Secretary oversees and ensures the coordination 
of the activities of the Under Secretaries. The Deputy Secretary 
ensures that the Secretary's direction and guidance is implemented 
promptly and properly by the Under Secretaries. The Deputy Secretary 
elevates to the Secretary issues raised by the Under Secretaries that 
require the Secretary's personal attention.
    Question. The Deputy Chief Management Officer (CMO) of the 
Department of Defense (DOD).
    Answer. The DCMO reports directly to the Deputy Secretary, and 
there must be a close working relationship between the two. The DCMO 
monitors and reports on the progress of the Department toward achieving 
management goals, keeps the Deputy Secretary informed, and proposes 
solutions to significant issues to the Deputy Secretary.
    Question. The Assistant Secretaries of Defense.
    Answer. For Assistant Secretaries who report directly to the 
Secretary, the Deputy Secretary's relationship with them would be 
similar to the Deputy Secretary's relationship with the Under 
Secretaries. For Assistant Secretaries who report directly to Under 
Secretaries, the Deputy Secretary works with them through the 
appropriate Under Secretary.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Deputy Secretary works closely with the Chairman and 
Vice Chairman of the Joint Chiefs of Staff. The Deputy Secretary has an 
especially close working relationship with the Vice Chairman on 
requirements, programming, budgeting, and departmental management 
matters.
    Question. The Secretaries of the Military Departments.
    Answer. The Deputy Secretary works closely with the Secretaries of 
the Military Departments to ensure that the Secretary of Defense's 
policies are implemented fully and effectively in a timely manner.
    Question. The CMOs of the Military Departments.
    Answer. The Deputy Secretary works with the CMOs of the Military 
Departments in close coordination with the Deputy CMO. The CMOs of the 
Military Departments play an important role in ensuring that the 
Department carries out its strategic plan and attains its management 
goals.
    Question. The Service Acquisition Executives.
    Answer. The Deputy Secretary plays an important role in 
establishing acquisition policy for the Department, and interacts with 
the Service Acquisition Executives primarily through the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.
    Question. The Chiefs of Staff of the Military Services.
    Answer. The Deputy Secretary works closely with the Service Chiefs, 
as appropriate, in ensuring the Services have the resources they need 
to accomplish assigned missions and implement the Secretary's policy 
effectively and efficiently. The Deputy Secretary normally works with 
the Service Chiefs, in their role as Service Chiefs, through the 
Secretaries of the Military Departments. The Deputy Secretary normally 
works with the Service Chiefs, in their role as members of the Joint 
Chiefs of Staff, through the Chairman and the Vice Chairman.
    Question. The Director of National Intelligence.
    Answer. The Deputy Secretary works closely with the Director of 
National Intelligence on matters of mutual interest to the Department 
and the Intelligence Community, for example, the relationship between 
the Military Intelligence Program and the National Intelligence 
Program.
    Question. The Inspector General of DOD.
    Answer. The Inspector General performs a vital function for DOD, 
and the Deputy Secretary receives advice from the Inspector General on 
significant issues. The Deputy Secretary ensures that the Inspector 
General is able to perform his functions in an independent manner.
    Question. The General Counsel of DOD.
    Answer. The Deputy Secretary relies on the General Counsel for 
legal advice on all issues that come before him. The Deputy Secretary 
must be able to rely on the candid advice of the General Counsel.
    Question. The Chief of the National Guard Bureau.
    Answer. The Deputy Secretary works with the Chief of the National 
Guard Bureau on matters related to the National Guard and in 
coordinating issues related to the National Guard with the States. The 
Deputy Secretary may receive advice from the Chief of the National 
Guard Bureau on any matter related to the National Guard.
    Question. The Judge Advocates General of the Services.
    Answer. The Judge Advocates General have important roles in their 
respective Military Departments, providing legal advice to the senior 
leaders of the Military Departments, overseeing the military justice 
system, and leading their respective teams of military and civilian 
lawyers. The Deputy Secretary works with the Judge Advocates General 
primarily through the General Counsel of DOD.

               DUTIES OF THE DEPUTY SECRETARY OF DEFENSE

    Question. Section 132 of title 10, U.S.C., provides that the duties 
of the Deputy Secretary of Defense are to be prescribed by the 
Secretary of Defense.
    Assuming that you are confirmed, what duties do you expect the 
Secretary to prescribe for you?
    Answer. The primary duty of the Deputy Secretary of Defense is to 
assist the Secretary as needed. If confirmed, my expectation is that 
the Secretary will ask me to serve as his alter ego when necessary; to 
assist him in organizing the decisionmaking process within the Office 
of the Secretary of Defense (OSD); to carry out the statutory duties of 
CMO of DOD; and to carry out other duties as assigned.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties?
    Answer. My background includes service in a number of previous 
civilian positions in DOD, culminating in my current service as Under 
Secretary of Defense for Acquisition, Technology, and Logistics. During 
this service, I have had the opportunity to serve under four 
Secretaries of Defense, working most closely with William J. Perry and 
Robert M. Gates, and to work closely with four Deputy Secretaries of 
Defense: William J. Perry, John P. White, John J. Hamre, and William J. 
Lynn III. In addition to my service within DOD, I have served as a 
member of the Defense Science Board, the Defense Policy Board, and 
Secretary of State Condoleeza Rice's International Security Advisory 
Board. I have also served as chair of the International and Global 
Affairs faculty at Harvard's Kennedy School of Government and Co-
Director of the Preventive Defense Project, a research collaboration of 
Harvard and Stanford Universities. If confirmed, I would bring to this 
position substantial experience with the Department in each of the last 
3 decades; current detailed knowledge of the Department's operations; 
experience with managing major policy initiatives; experience with 
managing one of the Department's largest organizations and several 
large defense agencies; a solid understanding of many of the major 
technological issues confronting the Department; and experience 
tackling some of the Department's most persistent management problems.
    Question. Do you believe there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Secretary of 
Defense?
    Answer. If confirmed, there would be many actions I would need to 
take to best perform the duties of Deputy Secretary. First and foremost 
among these would be to build a strong working relationship with 
Secretary Panetta as his Deputy. Likewise, I would need to build on my 
existing relationships with the Joint Staff, the combatant commanders, 
the Secretaries of the Military Departments and their military 
leadership, and the OSD staff to enlist their knowledge and assistance 
in helping me carry out the duties of Deputy Secretary. I would work 
closely with Deputy Secretary Lynn to ensure a smooth transition and 
seamless hand off of his major initiatives to ensure they are continued 
within the Department. Of critical importance initially would be to 
learn in greater detail the significant budget issues pending in the 
Department where my position as Under Secretary has not required deep 
involvement.
    Question. What changes to section 132, if any, would you recommend?
    Answer. At this time, I believe the statutory authorities for the 
position of Deputy Secretary of Defense are appropriate. If confirmed, 
I would be sure to inform Congress if I determined that any change in 
the statute were necessary to effectively perform the duties of this 
office.
    Question. Section 132 was amended by section 904 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008, to provide that 
the Deputy Secretary serves as the CMO of DOD. The Deputy Secretary is 
to be assisted in this capacity by a Deputy CMO.
    What is your understanding of the duties and responsibilities of 
the Deputy Secretary in his capacity as CMO of DOD?
    Answer. My understanding is that the primary duty of the CMO is to 
provide leadership and to ensure accountability for the business 
operations of DOD. These operations involve all of the Department's 
components and cut across the responsibilities of the Under Secretaries 
of Defense, so they require leadership and accountability at a high 
level. The CMO's role is to lead, oversee, and support, rather than 
supplant, the roles of the Secretaries of the Military Departments and 
agency heads in managing their business operations.
    The CMO also provides leadership to the CMOs of the Military 
Departments and is responsible for the development of the Strategic 
Management Plan for DOD. The Deputy Secretary chairs the Defense 
Business Systems Management Committee, a responsibility consistent with 
the CMO role.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. As Under Secretary, I have been deeply involved in the 
Department's operations over the last 2 years. As Defense Acquisition 
Executive and Defense Logistics Executive, I have fulfilled leadership 
roles similar in nature to the CMO role. This experience has provided 
me with the background and expertise to serve as CMO.
    Question. Do you believe that the CMO and DCMO have the resources 
and authority needed to carry out the business transformation of DOD?
    Answer. At this time, I believe that these positions have all of 
the authority needed to carry out business transformation. I am not 
currently in a position to determine if the CMO and DCMO have the 
appropriate resources to carry out these roles, although I have no 
reason to believe that they do not. If confirmed, I will examine the 
resources available to the CMO and DCMO to determine if they fully 
address the need.
    Question. What role do you believe the DCMO of DOD should play in 
the planning, development, and implementation of specific business 
systems by the Military Departments?
    Answer. As with the CMO, the role of the DCMO is to support and 
oversee rather than to supplant the responsibilities of the Secretaries 
of the Military Departments and other agency heads in acquiring 
specific business systems. The DCMO has specific responsibilities for 
many of our Major Automated Information System acquisitions as 
Milestone Decision Authority and broad responsibility for defense 
business systems as the Vice Chair of the Defense Business Systems 
Management Committee. The DCMO ensures that the acquisition of business 
systems is consistent with principles of sound business investment, has 
applied appropriate business process reengineering efforts, and is 
compliant with the Department's business enterprise architecture.
    Question. Do you believe that the DCMO should have clearly defined 
decisionmaking authorities, or should the DCMO serve exclusively as an 
advisor to the Deputy Secretary in his capacity as CMO?
    Answer. I believe that the DCMO should have duties as assigned by 
the CMO and the Secretary of Defense. These duties may include 
decisionmaking authority where the CMO or the Secretary determines 
appropriate.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the positions of CMO and DCMO?
    Answer. At this time, I believe the statutory authorities for the 
positions of the CMO and the Deputy CMO are appropriate. If confirmed, 
I would be sure to inform Congress if I determined that any change in 
the statute were necessary to effectively perform the duties of this 
office.
                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Deputy Secretary of Defense?
    If confirmed, what plans do you have for addressing these 
challenges?
    Answer. The main tasks of the Deputy Secretary of Defense are to be 
fully prepared to act and speak in the Secretary's stead at all times; 
to shape an orderly deliberative process for the Secretary, so that he 
can make decisions and advise the President based on careful 
consideration of accurate management information and a full range of 
options; and to manage the budget process and other Department-wide 
matters, reserving decisions of greatest consequence for the Secretary.
    I have had the opportunity to discuss these matters with Secretary 
Panetta, with other members of the Obama administration, with the 
Chairman and Vice Chairman of the Joint Chiefs of Staff, with the 
Service Secretaries and Chiefs, with combatant commanders, and with 
other leaders in OSD. I have also had the benefit of the advice of many 
Members of Congress, including members of this committee. Finally, it 
has been my privilege to know personally a number of former Deputy 
Secretaries of Defense throughout my career and I have worked, in one 
way or another, for almost every Secretary of Defense since Caspar 
Weinberger. Last, as Under Secretary of Defense for Acquisition, 
Technology, and Logistics, I have responsibility for a number of the 
matters that fall under the Deputy, and I look forward, if confirmed, 
to working with this committee to acquaint myself with the additional 
responsibilities that fall under the Deputy.

                               PRIORITIES

    Question. What broad priorities would you establish, if confirmed, 
with respect to issues which must be addressed by DOD?
    Answer. The top priority of the Deputy Secretary of Defense, like 
that of the Secretary, is to ensure the security of the American 
people.
    Key challenges facing the Department at this time include: 
prevailing in the current conflicts in Iraq and Afghanistan and in the 
fight against al Qaeda; keeping weapons of mass destruction out of the 
hands of terrorists and rogue nations; preparing to counter future 
threats and military technologies; preserving the finest fighting force 
in the world and taking care of servicemembers and their families; and 
continuing the process of reform which will be crucial in this time of 
constrained budgets.

                  NATIONAL SECURITY BUDGET REDUCTIONS

    Question. The President has called for $400 billion in reductions 
to national security spending over a 10-year period starting in 2013, 
and has asked the Secretary of Defense to lead a review to provide 
recommendations on where to make those cuts.
    What is your understanding of the current status of that review?
    Answer. It is my understanding that the review is ongoing and will 
be completed as part of the fiscal year 2013-2017 program and budget 
review.
    Question. What role do you expect to play, if confirmed, in guiding 
the review and in determining what cuts should be made to the defense 
budget?
    Answer. If confirmed, I would expect to play a significant role in 
the Department's program and budget review, including serving as 
chairman of the Deputy's Advisory Working Group which provides the 
Secretary informed views of major budget issues.
    Question. The recent agreement on the debt ceiling calls for 
reductions in defense spending that could range from $350 billion in 
the first phase, to as much as $900 billion, if the joint committee is 
unable to reach agreement and a sequester is required.
    Do you believe that a national security spending reduction of this 
magnitude can be accomplished without significant adverse impact on our 
national security?
    Answer. I believe the Department can build a balanced defense 
program that also achieves the national security reductions enacted as 
part of the Budget Control Act of 2011. These reductions are in line 
with what the Department was anticipating at a time of considerable 
fiscal challenge. However, making these reductions will require 
difficult choices by the Department and Congress. Any further 
reductions that may result from a failure of the joint committee to 
reach agreement will undermine our ability to meet our national 
security objectives. The risk of hollowing out the force and weakening 
our ability to respond to threats around the globe will go up 
significantly. It is imperative that the joint committee be successful.
    Question. If confirmed, how will you prioritize the objectives of: 
making needed investments in the future force, addressing pressing 
requirements for completing the mission in Iraq and Afghanistan, 
resetting of the force, meeting ongoing operational commitments across 
the globe, and achieving the level of savings proposed by the 
President?
    Answer. The art of budgeting is about setting priorities. Winning 
today's wars, investing in force modernization, resetting the force, 
and meeting our operational commitments are all priorities that must be 
addressed. In addition, Secretary Panetta has been clear that we must 
ensure that we are able to keep weapons of mass destruction out of the 
hands of terrorist and rogue nations and that we always support our 
servicemembers and their families. In addressing these priorities in 
the budget, it is important that we build a balanced defense program 
that meets the demands of today, but also prepares us to meet the 
inevitable challenges of tomorrow. That balance requires a careful 
assessment of the contribution each program makes toward those ends. 
Difficult choices will have to be made and, if confirmed, I look 
forward to contributing to that effort.

                        EFFICIENCIES INITIATIVE

    Question. Last year, then-Secretary Gates announced an efficiencies 
initiative designed to reform the business operations of the Pentagon 
and root out duplication, waste, and excess spending. The Secretary 
identified $78 billion of defense-wide cuts over the Future Years 
Defense Program; the Military Departments identified an additional $100 
billion of reductions, which they were permitted to reinvest in other 
areas.
    What is your view of the process by which DOD identified the $178 
billion in reductions called for in the efficiencies initiative?
    Answer. I believe that Secretary Gates acted with great foresight 
in establishing last year's efficiencies initiative. He clearly foresaw 
the fiscal and economic challenges our Nation is now confronting. As a 
result, the Department had a strong head start in identifying areas in 
its budget to target for efficiency. The process used by Secretary 
Gates, however, was designed to support his goal of largely 
redirecting, rather than reducing, defense spending. As a result, the 
processes that were used to identify the $178 billion in reductions may 
not be the best model for identifying the savings needed to meet the 
Department's current budget limitations. That said, the overall intent 
of Secretary Gates's initiative remains highly relevant, especially the 
Better Buying Power initiative, which we expect to continue to generate 
efficiencies in the Department's operations for years to come.
    Question. Do you believe that these reductions are achievable and 
have been appropriately distributed through the Department?
    Answer. I believe that the level of reductions projected by last 
year's efficiencies initiative are achievable and have been distributed 
appropriately throughout the Department. There will inevitably be a few 
efficiency items that produce lower savings than anticipated, thereby 
requiring the Services to make adjustments to meet their targets. 
However, it is my understanding that the Department, on the whole, is 
making good progress towards achieving the necessary reductions.
    Question. What role do you expect to play, if confirmed, in 
ensuring that the expected savings are achieved?
    Answer. If confirmed, I expect that I would oversee the 
Department's efforts to ensure that expected savings from the 
efficiencies initiative are realized.
    Question. What is your view of the decision to disestablish U.S. 
Joint Forces Command, the Business Transformation Agency, and the 
Assistant Secretary of Defense for Networks and Information 
Integration?
    Answer. I believe the disestablishment of these organizations has 
been executed with minimal disruption to the Department's operations 
and with satisfactory distribution of their enduring functions.
    Question. Do you believe that the Department can achieve 
significant additional savings through the elimination of duplication, 
waste, and excess spending?
    Answer. Yes. Over the last 10 years, the Department has been 
engaged in two wars and a range of other contingencies and has 
experienced growth in its base budget at a rate faster than inflation. 
These circumstances fostered a tendency to defer some difficult 
decisions because management attention was consumed by the wars and 
funding was not so tight that these decisions were unavoidable. In the 
current fiscal environment, we can no longer afford to defer these 
difficult choices. I believe, however, that meeting the budget limits 
established in the recent Budget Control Act of 2011 will require us to 
cut significantly more than just duplication, waste, and excess 
spending.
    Question. What role do you expect to play, if confirmed, in 
identifying such potential savings?
    Answer. If confirmed, I would expect to play a central leadership 
role in identifying potential savings in the Department's budget.

                           MANAGEMENT ISSUES

    Question. If confirmed, what key management performance goals would 
you want to accomplish, and what standards or metrics would you use to 
judge whether you have accomplished them?
    Answer. If confirmed, my key management goals will be those that 
have been identified in the fiscal year 2012 and fiscal year 2013 
Strategic Management Plan. These seven key goals are:

        <bullet> Strengthen and right-size the DOD Total Workforce mix 
        (military, civilian, and contracted support) to accomplish the 
        DOD mission and sustain superior performance in a time of 
        constrained resources.
        <bullet> Strengthen DOD Financial Management to respond to 
        warfighter needs and sustain public confidence through 
        auditable financial statements.
        <bullet> Build agile and secure information technology 
        capabilities to enhance combat power and decisionmaking while 
        optimizing value.
        <bullet> Increase the buying power of the DOD acquisition 
        system and processes spanning requirements determination, 
        development, procurement, and support to ensure that the force 
        structure is modernized, recapitalized, and sustained within 
        available resources.
        <bullet> Increase operational and installation energy 
        efficiency to lower risks to our warfighters, reduce costs, and 
        improve energy security.
        <bullet> Reengineer/use end-to-end business support processes 
        to reduce transaction times, drive down costs, and improve 
        service.
        <bullet> Create agile business operations that plan for, 
        support, and sustain contingency missions.

    These goals are aligned with and support the Department's 
overarching strategy as articulated in the Quadrennial Defense Review 
(QDR). Each goal is supported by sets of key initiatives and 
performance measures which serve as our management standards and 
metrics. The Department closely monitors these performance measures to 
assess whether we are achieving our goals.
    Question. GAO recently reported that ``the DOD systems environment 
that supports [its] business functions is overly complex and error 
prone, and is characterized by: (1) little standardization across the 
department, (2) multiple systems performing the same tasks, (3) the 
same data stored in multiple systems, and (4) the need for data to be 
entered manually into multiple systems. According to the department's 
systems inventory, this environment is composed of 2,258 business 
systems and includes 335 financial management, 709 human resource 
management, 645 logistics, 243 real property and installation, and 281 
weapon acquisition management systems.''
    Would you agree that the Department will not be able to put its 
financial house in order until it effectively addresses this problem?
    Answer. It is extremely important for the Department to rationalize 
its defense business system environment and ensure that its suite of 
systems is tightly integrated. However, while we must ensure that the 
Department's feeder systems, in all of its business areas, properly 
capture and report financial information, greater integration of our 
business systems environment alone will not correct the longstanding 
weaknesses in our business and financial operations. We must also 
continue to implement an integrated business strategy and pursue 
process improvement to enable interoperable business solutions and 
financial auditability.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes.
    Do you believe that a comprehensive, integrated, enterprise-wide 
architecture and transition plan is essential to the successful 
transformation of DOD's business systems?
    Answer. Yes.
    Question. What steps would you take, if confirmed, to ensure that 
DOD's enterprise architecture and transition plan meet the requirements 
of section 2222?
    Answer. If confirmed, I would continue the ongoing efforts to 
define, capture and enforce the business processes, data standards and 
business rules in the Business Enterprise Architecture (BEA) from an 
end-to-end perspective and hold the Under Secretaries of Defense and 
the Military Departments accountable for those functional portions of 
the BEA for which they are responsible.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information (aka 
business intelligence) is the operational intelligence we use to inform 
the management of our business operations. It provides assurance that 
we are effectively and efficiently using our limited resources, while 
ensuring good stewardship of the taxpayers' money.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to DOD managers?
    Answer. If confirmed, I would take my role as CMO/COO and chair of 
the Defense Business Systems Management Committee seriously. In these 
roles, I will hold those responsible for managing our business 
operations accountable for meeting the objectives identified in the 
Department's Strategic Management Plan that are directly linked to 
improving financial and business information.
    Question. The Department has chosen to implement the requirement 
for an enterprise architecture and transition plan through a 
``federated'' approach in which the Business Transformation Agency has 
developed the top level architecture while leaving it to the Military 
Departments to fill in most of the detail. GAO recently reported that 
none of the three Military Departments has yet fully developed a well-
defined business enterprise architecture and transition plan to guide 
and constrain business transformation initiatives.
    If confirmed, what steps would you take to ensure that the 
Secretaries and CMOs of the business enterprise architecture and 
transition plans of the Military Departments meet the requirements of 
section 2222 and provide a sound roadmap for business transformation 
initiatives?
    Answer. If confirmed, I would intend to hold the Secretaries and 
CMOs accountable for delivering integrated business solutions defined 
in the federated business enterprise architecture and affiliated 
transition plans.
    Question. What additional steps, if any, do you believe are needed 
to ensure that business system investments are defined and implemented 
in accordance with the Department's business enterprise architecture?
    Answer. If confirmed, I would assess the investment review process 
currently in place to review and certify business system investments 
and implement improved policies and procedures as necessary. My focus 
would be to ensure that we review our investments from a holistic, end-
to-end perspective.
    Question. What additional steps, if any, do you believe are needed 
to ensure that supporting architectures for component organizations are 
further developed and aligned with the corporate architecture to 
provide a truly federated business enterprise architecture?
    Answer. If confirmed, I will assess the plans of the Service 
Secretaries and CMOs of the Military Departments for aligning their 
enterprise architectures with the Department's overall business 
enterprise architecture approach.

                            AUDIT READINESS

    Question. Secretary Panetta has stated: ``While we have reasonable 
controls over much of our budgetary information, it is unacceptable to 
me that DOD cannot produce a financial statement that passes all 
financial audit standards. That will change. I have directed that this 
requirement be put in place as soon as possible. America deserves 
nothing less.''
    What is your understanding of the efforts and progress that have 
been made in DOD since 1999 toward the goal of being able to produce a 
clean audit?
    Answer. While I am not familiar with the details or history of DOD 
accounting systems, I understand that DOD financial processes were 
established and ingrained in legacy systems long ago. These processes 
and systems were designed for budgetary accounting--not for the 
accounting standards called for in the Chief Financial Officers (CFO) 
Act. I also understand that there has been limited progress made 
towards auditability until recently. Our CFO has established a set of 
priorities and a roadmap for making progress. It focuses on the 
budgetary information that we use to manage the Department and ensures 
we can account for the material we need to support our mission.
    Question. Do you believe that these efforts will result in a clean 
audit opinion by the end of fiscal year 2017, as required by statute, 
or are additional steps needed?
    Answer. Yes. 2017 is an ambitious goal but, as Secretary Panetta 
has indicated, the Department is committed to it. In addition, 
Secretary Panetta has directed a review of audit efforts to ensure that 
our focus is on completing the project as soon as possible.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a perquisite?
    Answer. From my discussions with Under Secretary of Defense 
(Comptroller)/CFO Hale, systematic improvement of the Department's 
business systems and processes is necessary to achieve a clean audit 
opinion.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. The Department is working to have auditable financial 
statements by 2017. Secretary Panetta's review of audit efforts will 
inform that goal.
    Question. The Department's Financial Improvement and Audit 
Readiness (FIAR) plan is organized into five waves that focus on audit 
readiness of the Statement of Budgetary Resources (SBR) (waves 1 and 
2), the existence and completeness of assets (wave 3), and a full 
financial statement audit (waves 4 and 5).
    If confirmed, what steps, if any, would you take to ensure the 
development and implementation of specific detailed plans for achieving 
a full audit through waves 4 and 5?
    Answer. I understand that while the longer-term goal involves 
planning for and executing the final two ``waves'', the Department 
remains focused on near-term milestones. Senior leadership within the 
military components is committed to, and is accountable for, 
accomplishing these interim goals. As directed in the NDAA for Fiscal 
Year 2011, the Department has developed a strategy for producing fully 
auditable financial statements. If confirmed, I would work with our CFO 
to prepare implementation plans that will lay out exactly how we will 
do this.
    Question. What is your understanding of the roles and 
responsibilities of the military-department CMOs in implementing the 
FIAR plan through their individual financial improvement plans (FIPs)?
    Answer. The oversight role of the CMOs was established in the NDAA 
for Fiscal Year 2008. Since then, the Department has developed more 
detailed responsibilities for the CMOs regarding their financial 
improvement role and responsibilities. Specifically, the Military 
Department CMOs:

        <bullet> Coordinate and marshal resources from across the 
        Department in support of Under Secretary of Defense 
        (Comptroller)/CFO financial improvement goals, objectives and 
        priorities.
        <bullet> Carry out budget, finance, accounting and human 
        resource operations in a manner consistent with the 
        comprehensive business transformation plan.
        <bullet> Eliminate or reduce financial management systems that 
        are inconsistent with the business systems architecture and 
        transition plan.
        <bullet> Ensure that the functional communities recognize their 
        role in achieving audit readiness, since most financial 
        transactions originate from business events in the functional 
        community's business operations.
        <bullet> Provide the unifying support needed to ensure that 
        business system modernization efforts are fully linked with 
        Component financial improvement activities.

    Question. What steps, if any, do you believe are needed to clarify 
those roles and responsibilities?
    Answer. I believe the currently defined roles are sufficiently 
clear, but, if confirmed, I would continue to monitor and make 
adjustments as needed.
    Question. Do you believe that performance measurement and 
monitoring mechanisms need to be improved?
    Answer. The Department has established a robust governance 
structure to oversee progress towards FIAR goals. If confirmed, I would 
plan to review our performance measures to see if any improvements are 
necessary to enable us to meet these goals.
    Question. If confirmed, what steps would you take to sustain the 
commitment of the Department's top leadership to the long-term goal of 
transforming the Department's financial management?
    Answer. Secretary Panetta has emphasized the importance of making 
the Department auditable. Our CFO has developed a plan for achieving 
audit readiness. If confirmed, I would intend to work closely with them 
and other leaders in the Department to transform the Department's 
financial management processes.
    Question. Do you think that having the Deputy Secretary of Defense 
``dual-hatted'' as the CMO is consistent with the prioritization and 
sustained day-to-day focus needed for the success of the Department's 
financial improvement efforts?
    Answer. Yes. Overall accountability rests with the Deputy Secretary 
in his CMO role. However, day-to-day responsibility falls to the CFO, 
the Deputy CMO, and the CMOs of the Military Departments, as well as 
line management throughout the DOD business enterprise.

                        BUSINESS TRANSFORMATION

    Question. Since 2005, the General Accountability Office (GAO) has 
designated DOD's approach to business transformation as ``high risk'' 
due to its vulnerability to waste, fraud, abuse, and mismanagement. 
However, GAO has recently found that the Department's senior leadership 
has shown commitment to transforming business system operations and has 
made progress in establishing management oversight and developing a 
strategic plan to guide transformation efforts. Nonetheless, in GAO's 
view, the Department needs to take additional action to further define 
management roles and responsibilities and to strengthen strategic 
planning.
    Do you believe that the Department needs to more clearly define 
roles and responsibilities, as well as relationships among key 
positions and governance entities, for integrating the Secretary of 
Defense's efficiency initiative with ongoing reform efforts; overseeing 
its implementation and otherwise institutionalizing the effort in the 
long term?
    Answer. I do not believe additional steps are necessary at this 
time, but, if confirmed, I would continue to monitor the situation 
closely and take corrective action where necessary. The tools that 
Congress has provided the Department over the past 6 years, including 
the establishment of a clear business system investment review process 
in the NDAA for Fiscal Year 2005, the creation of the CMO construct in 
the NDAA for Fiscal Year 2008, and specific strategic planning 
requirements in the Government Performance and Results (GPRA) 
Modernization Act of 2010, have created a strong framework for our 
business transformation efforts.
    Question. If so, what steps do you believe the Department should 
take to achieve this objective?
    Answer. I do not believe that additional steps are necessary at 
this time, but, if confirmed, I would continue to closely monitor the 
situation and take corrective action where necessary.
    Question. If confirmed, what steps, if any, would you take to 
further refine strategic goals, performance measures and other elements 
of the Department's strategic management plan?
    Answer. The Department's current strategic planning process is 
quite robust and has continued to improve with regard to planning for 
defense business operations since the introduction of the Strategic 
Management Plan (SMP) in the NDAA for Fiscal Year 2008. In my current 
role as Under Secretary of Defense for Acquisition, Technology, and 
Logistics, I have been involved in the latest planning efforts for the 
fiscal year 2012 and fiscal year 2013 SMP and believe that it 
faithfully aligns the Department's business goals with the Department's 
overall strategic goals. It also establishes a set of key initiatives 
and performance measures that will allow the Department's senior 
leaders the opportunity to track performance throughout the year and 
take corrective action where necessary. If confirmed, I would look to 
incorporate additional improvements and lessons learned from each 
iteration of this process.
    Question. If confirmed, what steps, if any, would you take to more 
clearly define the Department's strategic planning process, including 
mechanisms to guide and synchronize efforts to develop strategic plans; 
monitor the implementation of reform initiatives; and report progress, 
on a periodic basis, towards achieving established goals?
    Answer. The Department's current strategic planning process is 
effective. However, if confirmed, I would work to better align the 
timing of our business operations planning cycle with that of our 
overall strategic planning and budgeting activities. The Planning, 
Programming, Budgeting, and Execution (PPBE) process produces the 
following fiscal year's President's budget (PB) submission in February. 
The SMP articulates the Department's business priorities and is due in 
July. My goal would be to make the SMP timeline a more deliberate 
process aligning to the PPBE cycle.
    Question. Do you believe that the Deputy CMO should have control 
over funds for the components' business systems programs to ensure that 
the components follow guidance from OSD on the Department's business 
transformation efforts?
    Answer. I believe that it is important to allow the components to 
maintain control over their budgeting process, while simultaneously 
maintaining an enterprise perspective on our business system 
investments. The Department's current investment review process, 
established by Congress in the NDAA for Fiscal Year 2005, effectively 
allows OSD, including the Deputy CMO, in the role of vice chair of the 
Defense Business Systems Management Committee, to ensure that component 
investments are aligned with the enterprise strategy as laid out in the 
Business Enterprise Architecture.

                    ACQUISITION OF BUSINESS SYSTEMS

    Question. Most of the Department's business transformation programs 
are substantially over budget and behind schedule. Last year, at the 
request of the Armed Services Committee, GAO reviewed DOD's 9 largest 
Enterprise Resource Programs (ERPs), which are intended to replace more 
than 500 outdated business systems, and reported that 6 of the 9 had 
experienced schedule delays ranging from 2 to 12 years and incurred 
cost increases ranging from $530 million to $2.4 billion. GAO reported 
that DOD has failed to follow good management practices for developing 
schedules and cost estimates for many of these programs.
    If confirmed, how would you work with the Deputy CMO, the CMOs of 
the Military Departments, and the Under Secretaries of Defense to 
address these problems?
    Answer. It is my understanding that the Department concurred with 
the recommendations in the GAO report and that the Services have taken 
steps to implement them. If confirmed, I would intend to continue to 
work directly with the Deputy CMO, the CMOs of the Military 
Departments, the Under Secretaries of Defense, and the DOD Chief 
Information Officer to implement better management practices and 
internal lessons learned. Each of these officials has an important role 
to play in addressing the planning, implementation, and change 
management challenges that historically have hamstrung the Department's 
ability to deliver programs such as ERPs in accordance with established 
cost and schedule baselines.
    Question. DOD must implement a full range of business systems 
modernization management controls to ensure that its business system 
investments are the right solutions for addressing its business needs; 
that these investments are being managed to produce expected 
capabilities efficiently and cost-effectively; and that, ultimately, 
its business stakeholders are satisfied.
    What additional steps, if any, do you believe are needed to ensure 
that both the corporate and component investment management processes 
are appropriately defined and institutionalized?
    Answer. If confirmed, I would assess the investment review process 
the Department is using to review and certify business system 
investments and implement improved policies and procedures as 
necessary. The Department is currently implementing a Business 
Capability Lifecycle approach to acquiring business systems that 
emphasizes the use of well defined and relatively short increments of 
capability. Many of the Department's problems with business systems 
have stemmed from overly ambitious programs with severely 
underestimated budgets and schedules. The Business Capability Lifecycle 
approach is intended to constrain requirements and discipline programs 
to deliver testable and fieldable increments. I believe that adopting 
these practices will improve the results the Department achieves with 
its business systems investments.
    Question. What additional steps, if any, do you believe are needed 
to ensure that business system investments are managed with the kind of 
acquisition management rigor and discipline that is embodied in 
relevant guidance and best practices, so that each investment will 
deliver expected benefits and capabilities on time and within budget?
    Answer. If confirmed, I would continue to implement the principles 
and initiatives outlined in the report to Congress, ``A New Approach 
for Delivering Information Technology Capabilities in DOD,'' which was 
signed by Deputy Secretary Lynn, and which provides an update on the 
Department's progress toward developing a new acquisition process for 
information capabilities. The Department has already begun this process 
through the implementation of the Business Capability Lifecycle, an 
alternative acquisition approach for defense business systems, pursuant 
to guidance I issued in my current role as Under Secretary on November 
15, 2010. If confirmed, I would ensure that this alternative 
acquisition approach is followed and that the Department does not 
revert to the old way of doing business out of habit or inertia.
    Question. Do you believe that unique challenges to acquiring 
services related to information technology (IT) systems may require an 
acquisition strategy or approach different from those used for 
acquiring property or services unrelated to IT systems?
    Answer. Yes, I believe that there are unique challenges to 
acquiring services related to IT systems and we must tailor our 
acquisition strategies to meet these unique circumstances. In fact, the 
Department has already begun to adapt to the unique challenges of IT 
acquisition through the implementation of the Business Capability 
Lifecycle, an alternative acquisition approach for defense business 
systems.
    Question. What additional steps, if any, do you believe are needed 
to ensure that requirements management, systems testing, and data 
quality are improved and to help resolve other problems that have 
continued to hinder the Department's efforts to implement its automated 
systems on schedule, within cost and with the intended capabilities?
    Answer. The issuance of the report to Congress, ``A New Approach 
for Delivering Information Technology Capabilities in the Department of 
Defense,'' and the November 15, 2010 directive requiring the use of the 
Business Capability Lifecycle are important initial steps, however, 
more work remains to be done. The Department is in the process of 
revising its acquisition process governing directives to incorporate 
this approach, but implementation has already begun on a case-by-case 
basis. If confirmed, I will actively pursue the implementation of these 
initiatives.

                       DEFENSE ACQUISITION REFORM

    Question. Two years ago, Congress enacted the Weapon Systems 
Acquisition Reform Act of 2009 (WSARA), without a dissenting vote in 
either House. WSARA is designed to ensure that new defense acquisition 
programs start on a sound footing, to avoid the high cost of fixing 
problems late in the acquisition process.
    What are your views regarding WSARA and the need for improvements 
in the Defense acquisition process?
    Answer. When I initially took office as Under Secretary of Defense 
for Acquisition, Technology, and Logistics, I received a mandate from 
Secretary Gates to improve the defense acquisition system, including 
weapon systems acquisition, and particularly acquisition in response to 
urgent operational needs. Shortly thereafter, the administration 
supported, and Congress passed, the WSARA. I continue to support the 
improvements in the areas of defense acquisition organization and 
policy that are addressed in the WSARA. A number of the memos issued 
under the Department's Better Buying Power (BBP) initiative directly 
address WSARA mandates, ensuring that the act's requirements are 
reflected not only in acquisition policy, but also in our acquisition 
practice. This is particularly true in the case of the Department's 
mandate that affordability be treated as a requirement at major 
acquisition milestones, supporting the act's requirements that DOD 
examine trade-offs between cost, schedule, and performance, and in the 
Department's emphasis on promoting competition. If confirmed, I would 
continue the effort to improve the defense acquisition system 
consistent with the direction provided in WSARA. I would also continue 
to enforce the Better Buying Power guidance, based on WSARA, to target 
affordability and control cost growth, incentivize productivity and 
innovation in industry, promote real competition, improve tradecraft in 
services acquisition, and reduce non-productive processes and 
bureaucracy.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process--requirements, acquisition, and budgeting?
    Answer. My experience as Under Secretary has deepened my belief 
that the acquisition process must be closely coordinated with the 
requirements and budget processes in order for the defense acquisition 
system to function properly. I believe that in the last 2 years the 
Department has improved in this area, but it remains an ongoing 
challenge. The Department has made the most significant improvement in 
the area of rapid acquisition through the use of coordinating entities 
such as the Senior Integration Group (SIG), previously known as the 
Counter-Improvised Explosive Device SIG (C-SIG), which regularly brings 
together the leadership of the three processes with theater commanders 
to coordinate action on fulfilling urgent wartime needs. In July of 
this year, the Department broadened the responsibilities of the SIG to 
cover all urgent warfighter requirements.
    Prospectively, I believe it is necessary to create a closer 
alignment of the acquisition, requirements, and budget processes across 
the Department by expanding the type of cooperation and coordination we 
have instituted for urgent needs. If confirmed, I would make doing so a 
priority.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. The Goldwater-Nichols Act established a chain of authority 
for the acquisition process that provides for clear accountability in a 
chain beginning with the Defense Acquisition Executive and extending 
through the Component Acquisition Executives to the program Executive 
Officers and Program Managers. I emphasized this chain of 
responsibility as Under Secretary and, if confirmed, would continue to 
do so as Deputy Secretary. Additionally, the acquisition process must 
be operated in close coordination with the requirements process and the 
budget process, and this requires active participation by DOD's senior 
leadership to ensure all three processes are properly coordinated and 
held accountable. If confirmed, I am committed to ensuring 
accountability in all aspects of acquisition during my tenure.
    As Under Secretary, I have also worked to reward productivity, and 
innovation in the defense industry by ensuring that the terms and 
conditions of our contracts fundamentally align contractors' incentives 
with the Department's interest so that our industry partners are 
accountable for performance not just to the Department but to their 
shareholders.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. Since becoming Under Secretary of Defense for Acquisition, 
Technology, and Logistics, I have expressed my belief that the 
unacceptable cost growth in far too many individual programs, combined 
with a habit of mind born from an unrealistic belief that the defense 
budget would keep growing, had to be reversed in order to avoid an 
affordability crisis in defense acquisition. With the recent passage of 
the Budget Control Act of 2011, the Department will need to redouble 
its efforts to control cost growth in investment and reexamine all 
areas of the budget for affordability in the context of the caps put in 
place on discretionary spending. If confirmed, I would assist the 
Secretary in leading and managing the Department's review of all areas 
of the budget, including investment.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. If confirmed, I would continue to implement all aspects of 
WSARA and the Better Buying Power Initiative to reverse unacceptable 
cost growth in our programs and activities.
    Question. Do you believe that the Department has adequately 
addressed its shortfalls in systems engineering and developmental 
testing capabilities, or does more remain to be done in these areas?
    Answer. The Department has recognized and Congress has reinforced, 
with the WSARA, the need to reinvigorate and grow our capacity and 
capability in systems engineering and developmental testing and 
evaluation. I recognize the criticality of good systems engineering and 
strong developmental testing and evaluation to acquisition program 
success.
    The Department has appointed strong technical leaders as Deputy 
Assistant Secretaries of Defense for Systems Engineering (DASD(SE)) and 
Developmental Test & Evaluation (DASD(DT&E)), implemented new and 
updated Department acquisition policy and guidance, grown and educated 
its technical workforce, and increased program engagement with our 
Major Defense Acquisition Programs in supporting effective systems 
engineering and developmental test and evaluation activities.
    I believe that the resources and attention applied to these areas 
have been appropriate and I have supported the revitalization in these 
areas over the last 2 years, but I do not believe this work is done. If 
confirmed, I would work with the Secretary and Congress to ensure, 
within budget constraints, that we sustain the Department's commitment 
to grow a skilled acquisition workforce that provides the technical 
capabilities needed to deliver effective solutions to the warfighter on 
schedule and under budget.
    Question. Do you believe that additional steps are needed to ensure 
that WSARA principles are implemented on current major programs like 
the Joint Strike Fighter (JSF) program?
    Answer. WSARA principles have been widely implemented in the 
Department, but more can be done to implement them and extend them to 
non-Major Defense Acquisition Programs (MDAPs). The WSARA directly led 
to refined Department guidance and complementary policy initiatives 
that are positively affecting the JSF program, as well as the other 
MDAPs. Subsequent to passage of WSARA, the JSF program was the subject 
of numerous reviews, culminating in a Nunn-McCurdy critical cost breach 
certification review that was guided by the acquisition reform 
principles outlined in WSARA. The review incorporated the inputs of the 
WSARA-formed Office of the Director, Cost Assessment and Program 
Evaluation (CAPE), and also included the participation and assessments 
of the Office of Performance Assessment and Root Cause Analysis 
(PARCA), and the Offices of the Director, Systems Engineering and 
Developmental Test and Evaluation. These organizational changes were 
instrumental in the completion of the thorough review and restructuring 
of the JSF program that resulted in the Nunn-McCurdy certification on 
June 2, 2010. The WSARA has also contributed to a renewed emphasis on 
sound systems engineering principles, realistic cost and schedule 
estimating, a re-energized focus on integrated test and evaluation, and 
implementation of tighter cost control measures across the MDAPs, to 
include JSF. Implementation of the Department's Better Buying Power 
guidance, reflecting WSARA principles, has also resulted in an 
increased emphasis on affordability and the incorporation of should-
cost target goals for JSF and other MDAPs.

           ROLE OF SERVICE CHIEFS IN THE ACQUISITION PROCESS

    Question. Some have suggested that the Service Chiefs should be 
given a different or expanded role in the acquisition of major systems. 
Others have expressed concern that such a change would reverse efforts 
in the Goldwater-Nichols legislation to reduce the layers between the 
Under Secretary and the program managers, and ensure that there was a 
dynamic tension between those who defined requirements (Service Chiefs) 
and those who filled the requirements (Service Acquisition Executives).
    What do you believe is the appropriate role for Service Chiefs in 
the acquisition of major systems?
    Answer. Goldwater-Nichols establishes a clear chain of authority 
for the acquisition process and I believe this chain of authority--
program manager, program executive officer, component acquisition 
executive, defense acquisition executive--is appropriate for 
acquisition decisions. The acquisition process does not exist in 
isolation, however, and Service Chiefs play a major role as a result of 
their deep involvement in the budget and requirements processes, and 
because they fund, manage, and train the acquisition workforce of their 
respective Services. The acquisition process functions properly only 
when the Service Chiefs, acting through their chain of command, are 
actively involved.

                        CONTRACTING FOR SERVICES

    Question. Over the last decade, DOD's spending on contract services 
has more than doubled. As a result, the Department now spends more for 
the purchase of services than it does for products (including major 
weapon systems). You testified last year that ``the low-hanging fruit 
really is [in contract services]. There's a lot of money. There has 
been a very, very high rate of growth over the last decade, in 
Services. They have grown faster than everything else. . . . So, 
there's a lot we can do. I think great savings can be had there, across 
the Services' spending. It's essential that we look there, because 
that's half the money.''
    Do you believe that the cuts made to contract services pursuant to 
the efficiencies initiative fully addressed the issues of waste and 
inefficiency in this area, or are further reductions possible?
    Answer. I believe the reductions the Department has made to date, 
primarily in the area of service support contracts performing staff 
augmentation functions, are a good start but are insufficient. Further 
reductions are possible. One of the major focus areas of the Better 
Buying Power Initiative the Department has instituted is to improve the 
Department's tradecraft in services acquisition.
    Question. What additional steps would you take, if confirmed, to 
control the Department's spending on contract services?
    Answer. Under the Better Buying Power initiative, the Department is 
working to have a cohesive and integrated strategy for services 
acquisition. The steps already taken include appointment of senior 
managers for acquisition of services in each Military Department, 
adoption of a standard taxonomy for services and identifying best 
practices, and revised contracting policies to increase the use of 
competition. Additional steps that can be taken include improved 
benchmarking against commercial experience and employment of stronger 
incentives for efficient performance. If confirmed, I would continue to 
ensure that the Department focuses on those areas where we know 
improvements can be made so that we are not spending too much on 
contracted services.

       CONTRACTOR PERFORMANCE OF CRITICAL GOVERNMENTAL FUNCTIONS

    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, is DOD still too reliant on contractors to support 
the basic functions of the Department?
    Answer. The appropriate balance between organic government 
performance and reliance on contractors is something that must be 
assessed function by function. Many functions are appropriate for 
contractor support; however, some functions, such as program 
management, are more appropriately performed by Government personnel. 
Some functions are inherently governmental and should not be performed 
by contractors.
    As Under Secretary of Defense for Acquisition, Technology, and 
Logistics, I worked to adjust this balance in the acquisition 
workforce, which had become overly reliant on contractors in a number 
of areas. As a result, and with the committee's assistance, the 
Department has significantly strengthened the civilian and military 
components of the acquisition workforce. At the same time, I 
communicated to our entire organization that contractors are an 
important component of the Department's Total Force. If confirmed, I 
would assess the issue of appropriate use of contractors across the 
Department to determine whether and where else DOD's reliance on 
contractors has become excessive.
    Question. What additional steps, if any, do you believe are needed 
to reduce the Department's reliance on contractors to perform critical 
functions?
    Answer. I understand there are functions that are so critical to 
the Department's activities that some portion of the function must be 
performed organically for the Department to have sufficient internal 
capability to continue to be able to perform and control its 
operations. Critical functions must be assessed on a case-by-case basis 
because the level of internal capability required is dependent on the 
function in question. In my role as Under Secretary, I have sought to 
ensure that the Department retains sufficient organic capability for 
critical acquisition and logistics functions. At this time I believe 
the Department has identified and eliminated most, if not all, over-
reliance on contractors for critical functions. Over the next few 
years, however, I believe the Department needs to be watchful to ensure 
that this trend is not reversed. As budgets decline and as the organic 
workforce is reduced, there is a risk that reliance on contractors may 
increase, particularly in response to new contingencies. As the 
Department reduces its overseas deployments, it must identify and 
retain critical capabilities that have been built up over the past 
decade, at least at the level required to rapidly redeploy those 
capabilities in response to changing needs. Contingency contracting is 
an example of the type of expertise that must be institutionalized and 
retained. If confirmed, I would continue to work to address any 
shortfalls in the Department's ability to perform critical functions 
using organic resources.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. I support the statutory framework that Congress has 
constructed governing the use of personal services contracts. I believe 
the Department should adhere to this framework. If confirmed, I would 
ensure that personal services contracts are not used inappropriately.
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. According to widely published reports, the number of U.S. 
contractor employees in Iraq and Afghanistan has roughly equaled the 
number of U.S. military deployed in those countries.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. Contractors are a necessary part of the Total Force. They 
provide the Department with the ability to obtain a mix of unique skill 
sets and knowledge that may not be available in our organic force 
structure and permit us to concentrate our organic resources on those 
areas that are inherently governmental. Contractors provide a broad 
range of supplies, services, and critical logistics support in many 
capability areas, while reducing military footprint and increasing the 
availability and readiness of resources. Based on our experience in 
Iraq and Afghanistan, I believe we should continue to improve and 
evolve our strategy regarding the use and management of contractors. At 
this time, I do not believe the Department is too dependent on 
contractors for support of operations; however, this is an area that 
will require continuous scrutiny, particularly as budgets and organic 
capabilities are reduced. If confirmed, I would ensure that this 
scrutiny is provided.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. Reliance on contractor support can lead to operational 
problems if contractors fail to perform. Experience has shown that a 
number of other problems can arise, including a potential for increased 
waste, fraud, and abuse; problems that arise from contractor 
interaction with local communities; and issues with the use of force.
    In my role as Under Secretary of Defense for Acquisition, 
Technology, and Logistics, I have worked to ensure that these risks are 
mitigated. The study conducted by the Chairman of the Joint Chiefs 
regarding reliance on contracted support in contingency operations and 
the assessments being conducted by the Military Departments and 
agencies are key components in this effort. It is also critical to 
ensure adequate and appropriate planning for contractor support. The 
Department is integrating contractor support estimates into existing 
planning systems, and also ensuring that Operational Contract Support 
requirements are considered in force planning scenario development and 
joint force assessments. If confirmed, I would continue to monitor 
these initiatives closely.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. Not yet, but there has been improvement and more is 
underway. At the start of our conflicts in Iraq and Afghanistan, the 
Department was not properly organized and staffed to manage contractors 
in the ongoing contingency operations effectively, but a number of 
corrective actions have been taken over the last several years. If 
confirmed, I would continue to oversee ongoing efforts to ensure DOD 
institutionalizes its contingency contracting capabilities and applies 
lessons learned from our experiences in Iraq and Afghanistan to future 
conflicts.
    Question. What steps, if any, do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. The Department needs to further ensure that training and 
contingency plans account realistically for the role of contractors on 
the modern battlefield; that adequate numbers of contracting officers, 
contracting officer representatives, and other skilled personnel are 
available to manage contractors; that there is transparency into 
contractor and subcontractor performance; that waste, fraud, and abuse, 
and corruption are prevented and vigorously punished; that DOD 
coordinates with civil agencies effectively; and that other measures 
identified by the Department are taken. Many of these actions are the 
same as those recommended by the Commission on Wartime Contracting.

                      PRIVATE SECURITY CONTRACTORS

    Question. Do you believe DOD and other Federal agencies should rely 
upon contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. Without a substantial increase in the force structure 
committed to contingency operations, the use of contractors for some 
security functions in contingencies is a necessity. However, these 
security contractors must be properly regulated and supervised, and 
their roles must be carefully limited and defined. Contractors cannot 
engage in combat operations. Their use of force is limited to self-
defense, the defense of others against violence, and the protection of 
critical property. Under these circumstances, I believe that the 
limited use of security contractors in contingency operations is 
acceptable. It would be inappropriate for me to comment on their use by 
other departments and agencies. If confirmed, I would ensure that the 
Department continues its efforts to implement and enforce appropriate 
limitations on private security contractors.
    Question. In your view, has the United States' reliance upon 
private security contractors to perform such functions risked 
undermining our defense and foreign policy objectives in Iraq and 
Afghanistan?
    Answer. The use of force by contractors or military personnel 
could, if misapplied, undermine our policy objectives. Private security 
providers are a necessity in Iraq and Afghanistan and will likely 
continue to be so in future contingency operations. DOD has established 
policies and procedures to manage contractors effectively to prevent 
unnecessary violence that would be detrimental to our policy objectives 
and to address incidents where violence may occur. As Under Secretary 
of Defense for Acquisition, Technology and Logistics, I recently 
approved a revised instruction, DODI 3020.50, ``Private Security 
Contractors (PSCs) Operating in Contingency Operations, Humanitarian or 
Peace Operations, or Other Military Operations or Exercises,'' which, 
as the title notes, expanded our oversight of such contractors from 
those operating in contingency areas to essentially all overseas 
operations. This is an area that requires constant attention.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. If confirmed, I would continue to support the efforts 
already begun in this regard within the Office of the Under Secretary 
of Defense for Acquisition, Technology, and Logistics, in the Military 
Services, and in the combatant commands. These efforts include 
development of Department-level policy, coordinating this policy with 
the Departments of State and Justice and other Government agencies, and 
engaging the international community to provide a common framework for 
the proper roles and oversight of private security contractors and the 
enforcement of those policies during overseas operations by the 
appropriate authorities. The administration recently published rules 
that will apply to private security contractors working for all Federal 
agencies operating in overseas operations, consistent with DODI 
3020.50.
    Additionally, I believe that work remains to be done to ensure that 
DOD instructions and combatant commander guidance and orders remain 
current, clear, and aligned with, with U.S. defense and foreign policy 
objectives. Collaboration among DOD, the Department of State, and other 
Governmental agencies must continue to ensure consistent policy is 
developed across the Federal Government and with potential coalition 
partners and host nations to promote a common interagency and 
international understanding of responsible use and oversight of private 
security services and binding enforceable standards for private 
security contractors operating in areas of combat operations.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I support steps to ensure that there is accountability for 
the actions of all contractors performing work for the U.S. Government 
in an area of combat operations. If confirmed, I would consult with 
DOD's interagency partners concerning appropriate mechanisms to ensure 
such accountability.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. There must be an assurance of accountability for the 
actions of all contractors deployed to an area of combat operations. In 
most cases, the best option for handling cases involving contractors 
will be in the civil legal system. It is my understanding that in cases 
where there is no jurisdiction under an effective civil legal system 
justice is one tool to consider for ensuring accountability.
    Question. What is your view of the recently signed International 
Code of Conduct for Private Security Service Providers?
    Answer. I believe that the endorsement of the International Code of 
Conduct for Private Security Service providers was an important step 
for improving the performance of security functions by all private 
security contractors, not just those under contract to DOD or the U.S. 
Government. Codes of conduct, however, are aspirational and difficult 
to enforce. To make the Code effective, there needs to be auditable and 
measurable standards that exist separately from, and give teeth to, the 
principles of the Code: standards that are enforceable under contract 
law. Currently, the Department is sponsoring the development of 
business and operational standards for private security companies, and 
those which can be written into all Defense contracts for security 
functions. These standards are based on the principles described in the 
International Code of Conduct, along with the Montreux Document, and 
the regulations recently published in the Federal Register regarding 
private security functions.

                          IRAQ LESSONS LEARNED

    Question. What do you believe are the major lessons learned from 
the Iraq invasion, the effort to stabilize the country following that 
invasion, and the transition of security responsibility to the 
Government of Iraq?
    Answer. One of the most important lessons is that 21st century 
conflict will occur along the entire spectrum of conflict. DOD cannot 
be prepared only for combat, but also must be prepared to assist in 
addressing the social, political, and economic factors that can fuel a 
conflict. The U.S. military must plan and train with its civilian 
counterparts and be prepared to operate effectively in all phases of 
conflict. Indeed, the need for greater capabilities and capacity in 
civilian agencies has been a recurring lesson for the entire U.S. 
Government.
    Question. What is your understanding and assessment, if any, of the 
Department's adaptations or changes in policy, programs, force 
structure, or operational concepts based upon these lessons learned?
    Answer. Lessons learned from Iraq have led to wide-ranging changes 
in all of the areas listed above. For example, U.S. counterinsurgency 
doctrine has been completely revised, culminating in the publication of 
Counterinsurgency Field Manual 3-24. Force structure changes include 
the development of Advise and Assist Brigades. DOD has demonstrated the 
ability to learn and adapt across Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, Facilities, and Policy.
    Question. If confirmed, what additional changes, if any, would you 
propose making to policy, programs, force structure, or operating 
concepts based on the lessons of combat and stability operations in 
Iraq?
    Answer. I understand that many of the lessons from Iraq are in the 
process of being integrated into DOD policy and doctrine, and are 
contributing to the progress being made in Afghanistan. If confirmed, I 
would ensure that the integration of lessons learned from Iraq into 
policy and doctrine are carried through to completion.

                     LEAD AGENCY TRANSITION IN IRAQ

    Question. Responsibility and authority for lead U.S. agency in Iraq 
is scheduled this year to transition from DOD to Department of State 
(DOS). By October 2011, the Department of State is supposed to achieve 
an initial operating capability as lead agency and achieve full 
operating capability by December.
    What is your understanding and assessment, if any, of the planning 
and progress on executing this transition from DOD to DOS? In your 
view, what are the sources of greatest risk, if any, to the current 
plan and successful implementation of this transition?
    Answer. DOD, DOS, and other agencies and departments have 
undertaken unprecedented levels of coordination and planning for the 
transition in Iraq. As USD(AT&L), my office has had some role in the 
logistics and contracting aspects of the transition plan, and my 
observation is that DOD has an excellent working relationship with DOS, 
and the two departments are working together at all levels to achieve a 
successful transition. As one would expect with a transition of this 
scope and complexity, challenges exist, and DOD is doing everything it 
can to help set up DOS for success. The greatest source of risk would 
be failure to provide the State Department with adequate funding in 
fiscal year 2012 in order to implement a successful transition of the 
U.S. mission from DOD to State.
    Question. If confirmed, what changes, if any, would you propose to 
the current plan or actions for implementation of the transition?
    Answer. If confirmed, I would carefully monitor the transition with 
other senior Defense leaders and make any necessary recommendations to 
the Secretary of Defense.

                    STABILITY AND SUPPORT OPERATIONS

    Question. The U.S. experience in Iraq and Afghanistan has 
underscored the importance of planning and training to prepare for the 
conduct and support of stability and support operations in post-
conflict situations.
    In your view, what is the appropriate allocation of roles and 
responsibilities, if any, between DOD and other departments and 
agencies of the Federal Government in the planning and conduct of 
stability operations?
    Answer. Ideally, DOD would provide support to civilian agencies 
such as the Department of State, U.S. Agency for International 
Development, and the Department of Justice in the planning and conduct 
of stability operations. But, when directed, DOD has led stability 
operations activities to establish civil security and control and to 
restore essential services, repair and protect critical infrastructure, 
deliver humanitarian assistance, and then has transitioned lead 
responsibility to other U.S. Government agencies, foreign governments' 
security forces, and international governmental organizations and 
nongovernmental organizations. If confirmed, I would ensure that DOD 
operates within U.S. Government and international structures for 
managing civil-military operations, and would seek to enable the 
deployment and use of civilian capabilities and resources, as directed 
and as appropriate.
    Question. In developing the capabilities necessary for stability 
operations, what adjustments, if any, should be made to prepare U.S. 
Armed Forces to conduct stability operations without detracting from 
its ability to perform combat missions?
    Answer. Stability operations are a core mission that DOD must be 
ready to carry out with proficiency equivalent to high-intensity combat 
operations. Although this represents a cultural shift for DOD, we 
understand that all of our Military Departments must adequately train, 
organize, and equip forces to conduct such missions. If confirmed, I 
would work with the Secretary, the Chairman, and leadership of the 
Military Departments to ensure that DOD is preparing U.S. forces for 
stability operations.
    Question. Do you believe that the U.S. Government needs to 
establish new procedures to manage stability operations? If so, why?
    Answer. I think we need to strengthen the U.S. Government's 
collective ability to plan together and be more collaborative in 
designing stabilization and reconstruction activities. The Department 
is working with interagency partners to identify areas where we can 
improve planning efforts.
                            drawdown in iraq
    Question. Do you support the current plan for the drawdown of U.S. 
forces from Iraq consistent with the U.S.-Iraq Security Agreement of 
2008 signed by President Bush and Prime Minister Maliki?
    Answer. As the President has stated, we intend to fulfill our 
obligations under the 2008 U.S.-Iraq Security Agreement, which requires 
all U.S. forces to withdraw by the end of the year. I would also note, 
however, that it is possible that the United States and Iraq could 
agree on follow-on arrangements that could include continued presence 
of U.S. forces in Iraq after 2011. I support this plan.
    Question. If the Government of Iraq were to ask for the continued 
presence in Iraq of U.S. forces beyond the end of 2011, would you 
support the deployment or retention of additional troops in Iraq beyond 
the current deadline for U.S. troop withdrawal?
    Answer. On August 2, Iraqi bloc leaders stated that they have 
agreed to mandate the Iraqi Government start talks with the United 
States. Talks are focused on training assistance under the Strategic 
Framework Agreement, given the Iraqi Security Forces' requirement for 
further development. I agree that we should talk to them about their 
request.

                    U.S.-IRAQ STRATEGIC RELATIONSHIP

    Question. In your view, what will be the nature of the U.S.-Iraq 
strategic relationship after December 31, 2011?
    Answer. The United States is committed to a long-term partnership 
with Iraq, as outlined in the November 2008 Strategic Framework 
Agreement, which describes a security relationship that addresses Iraqi 
needs and advances U.S. interests.
    Question. What do you see as the greatest challenges for that 
relationship over the coming years?
    Answer. Our greatest challenge is to ensure continued U.S. 
engagement and support for Iraq in an austere budget environment. The 
United States is at a critical point in its relationship with Iraq as 
U.S. forces draw down and the State Department becomes the lead U.S. 
Agency for the mission. Recent turmoil in the broader Middle East 
highlights the importance of active U.S. engagement and maintaining 
strategic partnerships with regional partners based on mutual interests 
and mutual respect.

                 AFGHANISTAN COUNTERINSURGENCY STRATEGY

    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. Yes, I support the strategy that the President has set 
forth, and I believe it is the right strategy. A focused 
counterinsurgency campaign will allow us to help the Afghans build 
security forces and government capacity capable of providing the 
security and basic services necessary to achieve a peaceful, stable 
Afghanistan that does not again become a safe haven for terrorists.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan? For example, would you support an 
increase in counterterrorism action in Afghanistan?
    Answer. I believe the U.S. strategy in Afghanistan is sound. The 
administration tracks metrics on progress toward its objectives in 
Afghanistan throughout the year, and the Department is constantly 
assessing and adjusting its implementation of the overall strategy. 
Counterterrorism is a significant part of the counterinsurgency 
strategy, and managing the balance of all aspects of the strategy is an 
ongoing process.
    Question. What is your assessment of the progress of the 
counterinsurgency campaign in Afghanistan?
    Answer. Important gains have been made over the past 24 months, 
establishing security and the authority of the Afghan Government in 
former Taliban strongholds, particularly in Helmand and Kandahar where 
we focused our surge forces, as well as building the capacity of the 
Afghan National Security Forces. The momentum has shifted to the Afghan 
Government supported by Coalition forces, and the transition process 
has begun with the Afghan Government assuming lead security 
responsibilities in several areas of the country this summer. This 
progress is, however, fragile and reversible.

  TRANSITION OF SECURITY RESPONSIBILITY IN AFGHANISTAN AND U.S. TROOP 
                               REDUCTIONS

    Question. On June 22, President Obama announced his decision to 
draw down 10,000 U.S. troops from Afghanistan by the end of the year 
and to withdraw the remaining 23,000 ``surge'' force by next summer, 
for a total drawdown of 33,000.
    Do you support the President's decision to begin reducing U.S. 
forces in July 2011? Why or why not?
    Answer. Yes. I support a responsible conditions-based drawdown as 
called for by the President. I believe we have made the progress 
necessary to allow us to begin to bring home U.S. surge forces. As 
USD(AT&L), I have worked through my co-chairmanship of the Senior 
Integration Group (SIG) to ensure that the forces in Afghanistan grow 
in overall capability even as the U.S. troop presence begins to 
decrease.
    Question. Do you support the President's decision regarding the 
size and pace of reductions in U.S. forces? Why or why not?
    Answer. Yes. I believe we have made the progress necessary to allow 
us to begin to bring home U.S. surge forces.
    Question. At the NATO Summit in Lisbon, the participants in the 
International Security Assistance Force endorsed President Karzai's 
goal of the Afghanistan National Security Forces having the primary 
responsibility for providing security throughout Afghanistan by 2014. 
Last month, transition of lead responsibility for security from ISAF 
forces to Afghan security forces began in seven areas around 
Afghanistan.
    Do you support the goal of transitioning security responsibility to 
the Afghan security forces by 2014?
    Answer. Yes. The transition of security-lead to the ANSF in the 
first tranche of provinces and municipalities has progressed smoothly 
and without any significant uptick in violence in those areas. Our 
transition strategy, as stated at the November 2010 NATO Lisbon 
Conference, is to complete security transition nation-wide by the end 
of 2014. Transition remains conditions-based. The ISAF Commander and 
NATO Senior Civilian Representative are working together to refine the 
transition process to take into account the gradual drawdown of 
Coalition forces, declining funding, and the need to focus enablers and 
resources in contested areas as we move forward with transition.
    Question. How important is it to the civil-military campaign in 
Afghanistan that the initial round of transitioning security 
responsibility to the Afghan security forces begins this summer and be 
completed by the end of the year?
    Answer. Successful transition depends upon sufficient development 
and capable governance to underpin security gains. The timetable is and 
should be conditions-based.

                  AFGHANISTAN NATIONAL SECURITY FORCES

    Question. What is your assessment of the progress in developing 
professional and effective Afghanistan National Security Forces (ANSF)?
    Answer. In partnership with U.S. and NATO forces, the ANSF have 
made enormous progress in size and quality over the past 2 years and 
remain ahead of schedule for their growth targets this year. In 
addition, both the Afghan National Army (ANA) and Afghan National 
Police (ANP) have made significant gains in effectiveness and 
professionalism. The establishment of the Afghan Local Police (ALP) 
program has also fostered greater local capability to resist 
insurgents. However, real challenges remain, for example, in stemming 
attrition rates.
    Question. Do you support the proposed increase in the size of the 
ANSF to the level of 352,000 personnel by 2012?
    Answer. Military commanders who are the closest to the issue have 
conducted detailed analyses of ANSF personnel and capabilities 
requirements and have concluded that right now, a level of 352,000 
personnel appears to be the right force size, although the balance of 
forces between the Army and Police may change over time. President 
Obama and NATO have endorsed that growth to 352,000 personnel, and I 
support those decisions.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. Some of the main challenges to building the capacity of the 
ANSF include poor literacy rates and low education levels in the Afghan 
population, which constrain the development of more advanced ANSF 
capabilities such as logistics, aviation, medical, and communications. 
These capabilities will be necessary for an increasingly self-
sufficient ANSF to ensure Afghanistan does not again become a safe 
haven for terrorists. NATO Training Mission-Afghanistan has put 
considerable attention on, and resources toward, the literacy problem. 
Another key challenge is the development of strong and capable leaders, 
which takes time and experience to cultivate. If confirmed, I would 
work with military and civilian leaders and international partners to 
explore ways to bolster ANSF capacity.
    Question. If confirmed, what recommendations, if any, would you 
have to address challenges relating to the sustainment of the ANSF over 
the long-term?
    Answer. We need to challenge our planning assumptions continually 
to ensure the Afghans are developing a security force that is 
sustainable, in terms of size, capabilities, and cost. We need to 
continue to resist providing certain advanced aviation and armor 
capabilities that do not appear to be necessary for Afghan security and 
are likely to be unsustainable over the long term. Currently, the 
United States provides the bulk of funding for the Afghan National 
Security Forces. We need to continue to urge other countries to 
increase the amounts they contribute. For example, former Secretary of 
Defense Gates challenged NATO Allies and partners to contribute a 
combined one billion euros annually to the NATO Afghan National Army 
Trust Fund.

                   AFGHAN GOVERNANCE AND DEVELOPMENT

    Question. While improving security for the Afghan people is a key 
component of our counterinsurgency strategy in Afghanistan, the success 
of that strategy also depends on improving the Government of 
Afghanistan's capacity to provide governance, better services and 
economic development. Significant concerns remain over the performance 
of the Government of Afghanistan in meeting the needs of the Afghan 
people and fighting corruption.
    What do you see as the role for DOD in building the capacity of the 
Government of Afghanistan to deliver services, provide better 
governance, improve economic development and fight corruption in 
Afghanistan?
    Answer. Improving governance and economic development is crucial to 
our strategy in Afghanistan. Although the Department of State (DOS) and 
the U.S. Agency for International Development (USAID) are the lead 
agencies within the U.S. Government on governance and development 
initiatives in Afghanistan, DOD contributes to this effort and 
cooperates closely with DOS and USAID. Coordinating DOD stabilization 
projects with civilian reconstruction and development efforts ensures 
that the military and civilian activities work together to support 
longer-term development objectives, as well as near-term stabilization.

               U.S. STRATEGIC RELATIONSHIP WITH PAKISTAN

    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. Our relationship with Pakistan is not always easy, but it 
is vital to our national security and to our regional interests. The 
core national security goal remains to disrupt, dismantle, and defeat 
al Qaeda and its affiliates to ensure that they do not have safe havens 
in Afghanistan and Pakistan and to eliminate their capacity to threaten 
the United States, our Allies, and interests abroad. Al Qaeda and other 
extremists continue to use safe havens in Pakistan to plot and prepare 
attacks against the United States and our allies and partners, and it 
is essential to continue working with Pakistan to eliminate these safe 
havens.
    The fact that Pakistan is a nuclear state that faces internal 
threats from extremist organizations adds to the urgency of these 
requirements. Furthermore, U.S. economic interests in South Asia 
require stability in the region. Preventing, if possible, a potential 
Pakistan-India conflict is another important strategic interest. For 
these reasons, it is in the United States' interest for Pakistan to 
have a strong, civilian-led government and an open society, to live in 
peace and security with its neighbors, and to ensure its nuclear assets 
remain secure, in accordance with international standards. If 
confirmed, I look forward to working with Congress as we pursue these 
strategic interests with Pakistan.
    Question. What in your view are the key lessons from the operation 
to kill Osama bin Laden for the U.S.-Pakistan relationship?
    Answer. The key lesson from the raid is that the U.S. must act when 
U.S. vital national interests are at stake, including unilaterally, if 
other options present too much risk to mission success. A second lesson 
is that the Pakistan sanctuary for al Qaeda, Afghan insurgents, and 
other terrorist groups remains a threat to U.S. vital national 
interests that must be eliminated. A third lesson is that the United 
States must remain engaged in Pakistan to secure its vital interests, 
and that Pakistan needs the United States as much as the United States 
needs Pakistan.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. Our military-to-military relationship with Pakistan, like 
our overall relationship, has experienced good and bad periods. If 
confirmed, I would continue to support DOD's efforts, in coordination 
with our interagency partners, to improve our counterterrorism 
cooperation and develop a constructive and mutually beneficial 
relationship with Pakistan, aimed at advancing shared national security 
objectives.

                      U.S. ASSISTANCE TO PAKISTAN

    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan, including foreign military financing 
and training and equipment through the Pakistan Counterinsurgency Fund 
to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations. In addition, the United States 
has provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border and other support provided in connection 
with Operation Enduring Freedom.
    How effective, in your view, has this assistance been in improving 
Pakistan's efforts and commitment to counter terrorists in Pakistan?
    Answer. Security-related assistance, Coalition Support Fund 
reimbursements, and cross-border coordination with ISAF and Afghan 
forces have helped enable Pakistan's counterinsurgency campaign. Since 
2009, Pakistan has undertaken counterinsurgency operations against 
extremist organizations in its northwest areas, including in Swat, 
South Waziristan, Mohmand, and Bajaur, with varying levels of success. 
If confirmed, I would work with Congress to ensure that the support we 
provide is yielding the results we seek.
    Question. What conditions or factors should the Department take 
into consideration in determining whether additional U.S. military 
assistance should be provided to Pakistan in the future?
    Answer. The current ``train-advise-equip'' programs with the 
Pakistan military and paramilitary forces have been an important 
component in pursuing the near-term objective of eliminating terrorist 
sanctuaries and disrupting the al Qaeda network. It is vital, however, 
that Pakistan live up to its responsibilities, including to cooperate 
more fully in counterterrorism matters, to expand its counterinsurgency 
campaign, and to cease providing sanctuary to Afghan Taliban and other 
militant groups perceived to be beneficial to the Pakistani state. 
Future requests for security-related assistance will be informed by 
Pakistan's steps in these areas. Additionally, all U.S. security-
related assistance will continue to be provided to Pakistan in 
accordance with the Leahy vetting requirements.

                      OSAMA BIN LADEN AND AL QAEDA

    Question. In your view, will the death of Osama bin Laden have a 
significant impact on the conflict against al Qaeda and if so, how?
    Answer. The death of Osama bin Laden is a significant blow to al 
Qaeda and brings us closer to that organization's strategic defeat. 
However, al Qaeda remains a potent, dangerous, and adaptable foe. Even 
as the core al Qaeda organization is weakened, decentralized affiliates 
and adherents pose a continuing threat to the United States.
    Question. What is your assessment of the threat posed by al Qaeda 
affiliates to the U.S. Homeland, U.S. interests overseas, and western 
interests more broadly? Which affiliates are of most concern?
    Answer. Al Qaeda and its affiliates and adherents are diverse, 
dispersed, and decentralized. They are present in the Arabian 
Peninsula, North and East Africa, South Asia, and elsewhere around the 
globe, including within the United States. Their intent and ability to 
attack the United States varies by group, but striking the Homeland is 
a common theme in their propaganda and planning. Al Qaeda in the 
Arabian Peninsula has already demonstrated both the intent and the 
capability to conduct attacks against the United States. Also, despite 
the death of bin Laden, core al Qaeda and its affiliates and adherents 
in the Afghanistan-Pakistan region remain a persistent and serious 
threat.

                                SOMALIA
 
   Question. Somalia is a collapsed state with a weak government 
unable to project either power or stability or to provide services to 
its people in the midst of a humanitarian crisis. Somalia is also a 
training and operations hub for: al Shabab and other violent 
extremists; pirates operating in the Indian Ocean and Arabian 
Peninsula; illicit traffickers of weapons, humans, and drugs; and 
remnants of the al Qaeda East Africa cell that was responsible for the 
destruction of our embassies in Dar es Salaam and Nairobi in August of 
1998.
    What is your assessment of the threat posed by al Shabab to the 
U.S. and Western interests in the Horn of Africa and to the U.S. 
Homeland?
    Answer. The threat from al Shabab to the U.S. and Western interests 
in the Horn of Africa and to the U.S. Homeland is significant. Al 
Shabab leaders, who have claimed affiliation with al Qaeda since 2007, 
are developing ties with al Qaeda in the Arabian Peninsula, and are 
showing an increasing desire to stage international terrorist attacks 
in addition to their acts of violence inside Somalia. Al Shabab employs 
several hundred foreign fighters and regularly tries to recruit 
fighters from Somali diaspora communities in the United States and 
Europe. Al Shabab continues to repress the Somali people--it is not a 
coincidence that the areas in Somalia where the UN has declared famine 
conditions to exist are areas under al Shabab's control.
    Further, Somalia's lack of governance and sparse population could 
make it appealing as a safe haven for al Qaeda. As al Qaeda undergoes 
leadership changes and regroups from counterterrorism operations in 
Pakistan, we need to ensure that it does not relocate its center of 
operations to Somalia.
    Question. Given your knowledge of the role of the various U.S. 
Government departments and agencies in the Horn of Africa, what 
changes, if any, would you make to DOD's current role in the Horn of 
Africa?
    Answer. I understand DOD's primary mission in the Horn of Africa is 
to build partner-nation capacity in order to promote regional security 
and stability, prevent conflict, and protect U.S. interests. I believe 
this mission is appropriate. I am informed U.S. Africa Command is 
undertaking a review of East Africa to determine how our military 
efforts in the region work in concert with our interagency partners to 
achieve our collective regional goals and counter al Qaeda's linkages 
to elements of al Shabab. DOD's ultimate goal should be a fully 
integrated strategy under which security assistance, capacity building, 
operational collaboration with regional partners, and counter-terrorism 
actions are synchronized to provide the regional security and stability 
that is in the interest of both the United States and our regional 
partners.
    If confirmed, I would work to ensure our strategy is developed as 
part of a coordinated U.S. national security policy towards the Horn of 
Africa, and to determine how DOD can and should best support this 
policy.

              YEMEN AND AL QAEDA IN THE ARABIAN PENINSULA

    Question. A number of senior U.S. officials have indicated that the 
most significant threat to the U.S. Homeland currently emanates from 
Yemen.
    What is your assessment of the current U.S. strategy in Yemen?
    Answer. I understand the United States is disappointed by President 
Saleh's continued refusal to transfer power. U.S. leaders continue to 
urge him to do so immediately, and to ensure that the legitimate will 
of the Yemeni people is respected. The United States continues to work 
with European and Gulf Cooperation Council partners to facilitate a 
peaceful and orderly transition of power.
    The ongoing unrest has weakened an already fragile economy and 
allowed al Qaeda in the Arabian Peninsula (AQAP) to expand its 
influence. Despite this, U.S. goals in Yemen remain the same: to help 
Yemen deny AQAP a safe haven and operational platform and to ensure 
Yemen is stable, unified, and economically viable.
    AQAP has attempted two dramatic attacks on the United States since 
December 2009, and has expressed intent to try again. AQAP attack 
planning demonstrates sophisticated and innovative techniques, such as 
concealed explosive devices and printer cartridge bombs. AQAP is also 
increasingly attempting to recruit and radicalize would-be terrorists 
in the West through its extensive media outreach, increasing the threat 
of lone-wolf terrorists inspired by AQAP.
    The administration has just released a comprehensive National 
Strategy for Counterterrorism that calls for a collaborative U.S.-
Yemeni effort to disrupt, dismantle, and defeat AQAP. If confirmed, I 
would seek to ensure that DOD plays a constructive and appropriate role 
in carrying out this strategy.
    Question. Given the ongoing political upheaval and splintering of 
the military in Yemen, what are your views on the United States 
continuing to provide security assistance--most significantly DOD 
section 1206 funding--to Yemeni counterterrorism forces?
    Answer. As with every country, we are regularly evaluating U.S. 
assistance and counterterrorism cooperation to ensure that the 
assistance to be provided is appropriate and effective. The Republic of 
Yemen Government is a critical partner in the war against al Qaeda, and 
the Department must be particularly mindful of the continued and 
growing threat to the United States from AQAP. Given the challenges 
unfolding in Yemen, the United States will need to continually re-
evaluate the partnership.

                                 CHINA

    Question. Much has been made about the economic and military growth 
in China and what that growth might mean in terms of regional and 
global security.
    From your perspective, what effect is China's expanding economy and 
growing military having on the region at-large and how is that growth 
influencing the U.S. security posture in Asia and the Pacific?
    Answer. In terms of regional security, China's economic growth has 
increased China's international profile and influence, and has enabled 
China's leaders to embark upon and sustain a comprehensive 
transformation of its military forces. The pace and scale of China's 
military modernization, coupled with the lack of transparency, raises 
many questions, both within the United States and the region as a 
whole, about China's future.
    From my perspective, DOD has a special responsibility to monitor 
China's military and to deter conflict. Through a robust forward 
presence, prudent capability developments, and sustained action to 
strengthen alliances and partnerships, DOD can support our national 
interest in promoting a peaceful, stable, and prosperous Asia-Pacific 
region.
    Question. What do you believe are the objectives of China's 
military modernization program?
    Answer. China appears to be building the capability to fight and 
win short duration, high-intensity conflicts along its periphery. Its 
near-term focus appears to be on preparing for potential contingencies 
involving Taiwan, including possible U.S. military intervention. Its 
modernization efforts emphasize anti-access and area denial 
capabilities. China is also devoting increasing attention and resources 
to conducting operations beyond Taiwan and China's immediate periphery. 
Beijing's growing focus on military missions other than war includes 
humanitarian assistance, non-combat evacuation operations, and counter-
piracy support. Lastly, China is strengthening its nuclear deterrent 
and enhancing its strategic strike capabilities through modernization 
of its nuclear forces, and improving other strategic capabilities such 
as space and counter-space operations and computer network operations.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. The United States has been and should remain the pivotal 
military power in the Asia-Pacific region. Our response to China's 
military modernization should be flexible and supported by the 
continued transformation of our force posture in the Asia-Pacific 
region, the maintenance of our global presence and access, the 
modernization of our own capabilities in such areas as anti-access and 
area denial, and the strengthening of our Alliances and partnerships.
    Question. U.S-China military-to-military dialogue has been strained 
over the past several years and efforts to establish and maintain 
mutually beneficial military relations has been hampered by China's 
propensity for postponing or canceling military engagements in an 
apparent effort to influence U.S. actions. Since the beginning of 2011, 
there have been a number of senior-level meetings between U.S. and 
Chinese military officials, including visits to China by Secretary 
Gates and Admiral Mullen, and a visit to United States by the People's 
Liberation Army Chief of Staff, General Chen. By most accounts, gains 
from these meetings have been modest at best, but they do represent an 
encouraging step towards perhaps a more mutually beneficial 
understanding between the militaries of our countries.
    What is your assessment of the current state of U.S.-China 
military-to-military relations and what would be your intention, if 
confirmed, regarding these relations?
    Answer. I have long supported a continuous dialogue between the 
armed forces of the United States and China to expand practical 
cooperation where our national interests converge and to discuss 
candidly those areas where we have disagreement. Such dialogue can be 
especially important during periods of friction and turbulence.
    I believe we should continue to use military engagement with China 
as one of several means to demonstrate U.S. commitment to the security 
of the Asia-Pacific region, to encourage China to play a constructive 
role in the region, and to press China to partner with the United 
States and our Asian allies and partners in addressing common security 
challenges.
    Question. What is your view of the relative importance of sustained 
military-to-military relations with China?
    Answer. President Obama and President Hu have expressed that a 
healthy, stable, reliable, and continuous military-to-military 
relationship is an essential part of their shared vision for a 
positive, cooperative, and comprehensive U.S.-China relationship. I 
fully agree with that assertion.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly work if China is willing to reciprocate 
with transparent and substantive discussions. If confirmed, I would 
look for ways to deepen and enhance our military-to-military 
relationship with China, and to encourage China to act responsibly both 
regionally and globally.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near-term 
threats to regional security and stability. This seriousness of the 
threat is seen by North Korea's continued pursuit of a nuclear 
capability and ballistic missile program, and particularly, over the 
past year, by North Korea's unprovoked and deadly attacks against South 
Korea--specifically the attack on the Republic of Korea navy ship 
Cheonan in March 2010 and the artillery attack on South Korea's 
Yeonpyeong Island in November 2010.
    What is your assessment of the current security situation on the 
Korean peninsula?
    Answer. North Korea's large conventional military, proliferation 
activities, and pursuit of asymmetric advantages through its ballistic 
missile and weapons of mass destruction (WMD) programs, including 
uranium enrichment, present a serious threat to the United States, our 
allies in the region, and to the international community. The two North 
Korean attacks against South Korea last year provide a sober reminder 
that Pyongyang is willing to utilize its capabilities to undertake 
provocative actions. If confirmed, I would intend to monitor the 
security situation on the Korean Peninsula closely; work for the 
continued transformation of our alliances and partnerships in the 
region; and maintain the military capabilities necessary to protect our 
interests, defend our allies, and deter North Korea from acts of 
aggression and intimidation.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's missile and WMD programs pose a direct and 
serious threat to our regional allies and partners and have the 
potential to become a direct threat to U.S. territory. The United 
States must continue to monitor carefully North Korea's WMD and missile 
development programs and related proliferation activities. If 
confirmed, I would ensure that DOD continues to work closely with other 
parts of the U.S. Government to address these and other emerging 
threats, reduce our vulnerabilities and those of our allies and 
partners, and work cooperatively with our allies to ensure our 
contingency planning remains adaptive and responsive.
    Question. In your view are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran, and others?
    Answer. I understand that DOD, with its interagency partners, has 
taken several steps to prevent North Korea's proliferation of weapons-
related technology, including working to advance international 
nonproliferation norms and cooperating with partner nations to inspect 
and interdict vessels and aircraft suspected of carrying illicit cargo. 
If confirmed, I would continue to work to strengthen international 
consensus against proliferation, invest in capacity-building programs 
with partner nations, and increase WMD-related information sharing with 
international partners.

                       LAW OF THE SEA CONVENTION

    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the U.S. Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea convention?
    Answer. I support U.S. accession to the Law of the Sea Convention.
    Question. How would being a party to the Law of the Sea convention 
help or hinder the United States' security posture in the Asia-Pacific 
region?
    Answer. Being a party to the Law of the Sea Convention would not 
hinder the U.S. security posture in the Asia-Pacific region. In fact, 
it would enhance our leadership and ability to influence future 
developments in the law of the sea, strengthen our position in 
bilateral discussions with the People's Republic of China, and improve 
our position in a large number of Asia-focused multilateral venues. As 
former Deputy Secretary of Defense Gordon England testified before the 
Senate Foreign Relations Committee in September 2007, ``The legal 
framework that the Convention establishes is essential to the mission 
of DOD, and the Department of Homeland Security concurs that it is also 
essential for their mission. For that reason, Secretary Gates, the 
Joint Chiefs of Staff, the Military Department Secretaries, all of the 
combatant commanders, and the Commandant of the Coast Guard join me in 
asking the Senate to give its swift approval for U.S. Accession to the 
Law of the Sea Convention and ratification of the 1994 Agreement.''

                 DEPARTMENT OF DEFENSE COUNTERNARCOTICS

    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding relating to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. I understand that the Department's counternarcotics 
activities are intended to perform important roles, including detection 
and monitoring of drug trafficking bound for the United States, 
counternarcotics support to law enforcement agencies, drug demand 
reduction for the armed services, and critical support for combatant 
commanders' efforts to confront drug trafficking and other forms of 
transnational organized crime that support terrorists, insurgents, and 
other criminal groups. If confirmed, I would assess the Department's 
progress against these goals.
    Question. In your view, should DOD continue to play a role in 
attempting to stem the flow of illegal narcotics?
    Answer. Yes. In support of the National Drug Control Strategy, DOD 
plays an important, statutory role as the lead agency for the detection 
and monitoring of drug trafficking bound for the United States. 
Additionally, as outlined in the President's Strategy to Combat 
Transnational Organized Crime released in July 2011, drug trafficking 
and other forms of organized crime pose a national security threat to 
the United States. The enemies we face on the battlefield today are 
increasingly financed through non-traditional means, including through 
drug trafficking and other forms of organized crime. Just as the 
Department has long been focused on how traditional, state-funded 
adversaries are supported, we must use all of the tools at our disposal 
to attack the sources of revenue that support the asymmetrical threat 
we face today and are likely to face for the foreseeable future. 
Transnational organized crime contributes to global instability by 
undermining legitimate government institutions, fostering corruption, 
and distorting legitimate economic activity. The Department's efforts 
to build the counternarcotics capabilities of partner nation security 
forces serve to prevent and deter broader conflicts that could require 
a much more costly military intervention in the future.
    Question. In your view, should DOD continue to fund the National 
Guard Counterdrug Program for Youth Intervention and local law 
enforcement education programs that may be duplicative of the efforts 
of other agencies, using CN funds?
    Answer. I am aware of the purposes of this program, and, if 
confirmed, will assess its level of funding.

                           ENGAGEMENT POLICY

    Question. One of the central pillars of our recent national 
security strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander (COCOM) 
exercises, humanitarian demining operations, and other engagement 
activities have been used to achieve this goal.
    Do you believe that these activities contribute positively to U.S. 
national security?
    Answer. Yes, DOD's engagement activities encourage and enable 
partner nations to provide political support, to give us access to 
territory and resources, to secure and govern their territory more 
effectively, and to contribute to regional and global security. Partner 
support reduces our risk around the world and enables U.S. deterrence 
and, when necessary, military actions. Further, enabling our foreign 
partners to provide for their own security and contribute to 
multilateral security efforts is an investment that pays immediate and 
long-term dividends by reducing the need for costlier U.S. 
interventions in response to turmoil in regions critical to U.S. 
interests. I believe that taken on the whole, these engagement 
activities are a cost-effective way to strengthen our national security 
posture by building lasting relationships and alliances with partner 
nations.
    Question. If confirmed, would you support continued engagement 
activities of the U.S. military?
    Answer. Yes, I believe that maintaining cooperative security 
relationships with foreign militaries will be imperative for DOD in the 
foreseeable future.
    Question. What improvements, if any, would you suggest to the COCOM 
or interagency process for undertaking these activities?
    Answer. As with stability operations and security sector 
assistance, DOD's investment in international engagement is most 
effective when coordinated with U.S. Government civilian counterparts 
with adequate capacity. If confirmed, I would ensure the Department 
works closely with other agencies to ensure that the U.S. military 
plans and trains with our interagency civilian counterparts, that we 
are jointly prepared to engage with partner nations to prevent 
conflicts and, if prevention fails, to respond effectively in all 
phases of conflict.

                       BUILDING PARTNER CAPACITY

    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``Section 
1206'').
    In your view, what should be our strategic objectives in building 
the capacities of partner nations?
    Answer. Our primary objective in building the capacity of foreign 
partners should continue to be to help them develop effective and 
legitimate security institutions that can provide for their countries' 
internal security, and contribute to regional and multilateral 
responses to threats and instability. This, in turn, mitigates the 
burden on U.S. forces responding to security threats outside the United 
States and promotes interoperability between our forces.

                       SPECIAL OPERATIONS FORCES

    Question. The previous two Quadrennial Defense Reviews have 
mandated significant growth in our Special Operations Forces and 
enablers that directly support their operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. U.S. Special Operations Command's (SOCOM) current 
throughput is programmed to meet the growth mandated by the last two 
QDRs. This planned special operations personnel growth, at the rate of 
3 to 5 percent per year, includes Navy SEAL, Army Special Forces and 
Special Operations Aviation, and combat and combat support personnel. 
Until that programmed growth is complete, I do not believe it is 
prudent to consider additional growth to the Special Operations Forces 
(SOF) community.
    Question. In your view, how can the size of SOF be increased, while 
also maintaining the rigorous recruiting and training standards for 
special operators?
    Answer. SOF cannot be mass produced. As Admiral McRaven has pointed 
out, Special Operations growth should stay between 3 to 5 percent per 
year in order to ensure quality of the manpower being produced. This is 
the pace SOCOM has sustained over the past several years and is on 
track to sustain over the next several years. However, as the security 
landscape has changed, the demands for indirect kinds of missions have 
begun to exceed the ability of the Special Operations community alone 
to meet. As a partial remedy to this situation, the 2010 QDR 
recommended expanding general purpose forces' capacities and 
capabilities to execute some missions that used to fall exclusively to 
SOF. I support this recommendation.
    Question. In recent years, SOF have taken on an expanded role in a 
number of areas important to countering violent extremist 
organizations, including those related to information and military 
intelligence operations. Some have advocated significant changes to 
SOCOM title 10 missions to make them better reflect the activities 
Special Operations Forces are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. The Department uses a range of processes, such as the 
Unified Command Plan, to review the mission sets and responsibilities 
it assigns to SOCOM on an ongoing basis. Additionally, the language in 
section 167 of title 10, U.S.C., includes ``such other activities as 
may be specified by the President or the Secretary of Defense,'' which 
provides the President and the Secretary of Defense the flexibility 
needed to meet changing circumstances. At this time, I would not 
advocate significant changes to SOCOM's title 10 missions, though, if 
confirmed, I would review these responsibilities.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. At this time, I would not advocate significant changes to 
SOCOM's title 10 missions.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The activities of Special Operations Forces are 
significantly varied, from strikes and counterterrorist raids to 
working by, with, and through local partners, whether that be in the 
form of training and advising foreign counterparts or providing support 
to civilian authorities abroad. I believe that each of these missions 
is an essential component of the Department's national security 
responsibilities and highly valued within the Special Operations 
community. If confirmed, I would seek to ensure that investments are 
made in an appropriately balanced way.

                                 RUSSIA

    Question. What are the areas of engagement with Russia that are 
most beneficial from a DOD perspective? How would you recommend 
carrying out such engagement?
    Answer. I understand that the Department has a robust engagement 
plan with the Russian Armed Forces through two working groups under the 
Bilateral Presidential Commission: (1) the Defense Relations Working 
Group (co-chaired by the Secretary of Defense and the Russian Minister 
of Defense) and (2) the Military Cooperation Working Group (co-chaired 
by the Chairman of the Joint Chiefs of Staff and the Russian Chief of 
the General Staff). The Defense Relations Working Group focuses on 
high-level policy issues, such as missile defense cooperation, defense 
technology cooperation, security issues, and defense reform. The 
Military Cooperation Working Group focuses on military-to-military 
cooperation, including counter-terrorism, Afghanistan-Pakistan, crisis 
response and counter-piracy. Services Chiefs and combatant commanders 
(particularly U.S. European, Pacific, and Northern Commands) also take 
part in military-to-military engagement activities contained in a 
mutually agreed upon annual work plan. Combined, these efforts strive 
to increase transparency and maintain direct and frank lines of 
communication, and I support their continuation and strengthening.
    Question. As Russia and the United States implement the New START 
treaty, do you believe that it will be possible to begin a discussion 
on tactical nuclear weapons, and are there any conditions that you 
believe should be precedent to such discussions?
    Answer. As stated in the Nuclear Posture Review, the United States 
intends to pursue further reductions in strategic and nonstrategic 
nuclear weapons with Russia, including both deployed and non-deployed 
nuclear weapons. Because of the verification challenges associated with 
limiting non-strategic and non-deployed weapons, I believe that a 
discussion of potential cooperation measures would be useful as an 
early component of discussions on reductions and strengthened security 
measures.

               DOD'S COOPERATIVE THREAT REDUCTION PROGRAM

    Question. The Cooperative Threat Reduction (CTR) program was 
historically focused primarily on eliminating Cold War era weapons of 
mass destruction (WMD) in the states of the former Soviet Union. The 
emphasis of the program is beginning to shift away from Russia and to 
new threats, such as biological weapons surveillance mechanisms in 
Africa and elsewhere.
    In your view, what still needs to be done to reduce the 
proliferation threat from the residual Cold War stockpiles of WMD 
weapons and materials in the former Soviet Union?
    Answer. I have been involved in the Nunn-Lugar program from its 
inception and continue to participate in its management as USD(AT&L). I 
believe the countries of the former Soviet Union have made significant 
progress to reduce the threats associated with the extensive Soviet WMD 
programs, facilities, and stockpiles in their territories. In many 
cases this was accomplished with the support and assistance of DOD's 
Nunn-Lugar CTR program. The threat posed by WMD terrorism underscores 
the need for continued attention to residual Cold War stockpiles of WMD 
and materials. Where and when host governments are unable to mitigate 
this threat on their own, CTR and other U.S. programs should work with 
these nations to reduce these threats through the dismantlement of WMD 
and associated infrastructure and the consolidation and securing of WMD 
and related technology.
    Question. Are Russia and the former Soviet Union countries now 
making a significant contribution to efforts to reduce the 
proliferation threats they inherited?
    Answer. It is my understanding that, through direct national 
funding as well as collaboration with U.S. agencies and other 
international partners, Russia and other states of the former Soviet 
Union (FSU) are making significant contributions to reduce 
proliferation threats they inherited and to address new ones.
    The Nunn-Lugar CTR program continues to be DOD's principal vehicle 
to support these activities. FSU countries are partnering with CTR and 
other U.S. programs to reduce a variety of Soviet-era WMD threats 
within their borders and the region. As a specific example, we continue 
a strong partnership with the Government of Kazakhstan to destroy, 
secure, and consolidate dangerous pathogens and improve Central Asia's 
capacity to prevent and respond to a bioterrorism attack.
    Question. What do you see as the key remaining objectives of the 
CTR program in Russia?
    Answer. I view the key remaining objectives of CTR in Russia to be 
the prevention of proliferation and WMD terrorism through dismantlement 
of WMD and associated infrastructure; consolidation and security of WMD 
and related technology; transition of sustainment responsibilities for 
U.S.-provided security upgrades to the Russian Ministry of Defense; 
increased transparency; and support to bilateral defense and military 
cooperation, with the goal of reducing WMD threats.
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts, 
including DOD, the Department of Energy, and the State Department?
    Answer. From my current position, I appreciate that DOD's CTR 
mission is executed with strong White House leadership, essential 
support from the Department of State, and in close cooperation with the 
Department of Energy and other interagency partners. Robust 
collaboration across U.S. agencies and interagency coordination is a 
hallmark of the program and key to its effectiveness. If confirmed, I 
would continue efforts to maximize coordination and cooperation with 
our interagency and international partners.
    Question. As the CTR program expands to geographic regions beyond 
the states of the former Soviet Union, in your view what proliferation 
and threat reduction goals should DOD establish?
    Answer. In my current position with responsibility for the Defense 
Threat Reduction Agency, I have made it a priority to expand the 
geographic reach of the CTR program beyond the former Soviet Union. WMD 
threats are global, and DOD has substantial experience in building 
partner capacity to address WMD threats worldwide. The President has 
highlighted the threats posed by nuclear and biological terrorism as 
key proliferation concerns requiring international attention. In line 
with these priorities, DOD's goals for the program are: (1) reducing 
and eliminating nuclear weapons threats; (2) improving the security and 
accounting of nuclear weapons and weapons-usable fissile material; (3) 
detecting, eliminating, and preventing the proliferation of chemical 
weapons and biological materials; and (4) encouraging development of 
capabilities to reduce proliferation threats among key partners and 
regions.

                          PROMPT GLOBAL STRIKE

    Question. The 2010 Quadrennial Defense Review concluded that the 
United States will continue to experiment with prompt global strike 
prototypes. There has been no decision to field a prompt global strike 
capability as the effort is early in the technology and testing phase. 
One test failed and the second test will occur in August.
    In your view, is there a role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. The Department continues to investigate options for this 
unique capability. It is envisioned that a conventional prompt global 
strike (CPGS) capability could be useful in certain scenarios involving 
regional adversaries considering an attack using weapons of mass 
destruction or against high priority non-state adversaries. It may also 
serve a unique role in situations where a fleeting, serious threat was 
located in a region not readily accessible by other means.
    Question. What approach to implementation of this capability would 
you expect to pursue if confirmed?
    Answer. DOD is developing and testing technologies relevant to both 
land-based and sea-based CPGS concepts. It would be premature to make 
any decisions regarding a future acquisition strategy or development 
concept for this technology until this concept assessment has been 
completed.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. As with other weapon systems, effective employment of CPGS 
weapons would depend on the availability of timely and accurate 
intelligence on the nature, location, and disposition of a potential 
target. Given the precision and promptness inherent in the CPGS 
concept, the intelligence requirements for this system would be 
especially demanding.

               NUCLEAR WEAPONS AND STOCKPILE STEWARDSHIP

    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, and as the Chairman of the 
Nuclear Weapons Council, what do you view as the greatest challenges 
with respect to assuring the safety, reliability, and security of the 
stockpile?
    Answer. The most recent certification of the stockpile, completed 
in April 2011, indicates the stockpile is safe, secure, and reliable. 
The greatest challenge, as reflected in the comments of the national 
security laboratory directors, concerns the long-term sustainment and 
viability of the stockpile and the supporting infrastructure. As the 
weapons complex and nuclear stockpile continue to age, efforts to 
sustain them are becoming more costly and technically difficult. Since 
the 2010 Nuclear Posture Review, substantial financial and political 
commitments have been made to address age-related issues in the nuclear 
weapons complex. If confirmed, I will continue to work with Congress 
and the Department of Energy on this effort to maintain the skills, 
capabilities, and infrastructure needed to ensure the safety, 
reliability, and security of our nuclear stockpile in a constrained 
budget environment.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing?
    Answer. If the Department of Energy/National Nuclear Security 
Administration (DOE/NNSA) Stockpile Stewardship Program remains 
adequately funded to maintain critical technical and manufacturing 
capabilities, I believe it is likely to continue to be effective. My 
recommendation on what steps to take in the event that the stockpile 
could not be certified as safe, secure, and reliable would depend upon 
the causes of the problems in the stockpile, and what technical steps 
would be needed to address them.
    Question. As the current Chairman of the Nuclear Weapons Council, 
what are the most significant issues facing the Council?
    Answer. The continued safety, security, and reliability of our 
nuclear stockpile is the most significant challenge facing the Council, 
and it is important to meet this challenge in a cost-effective manner. 
It is essential that the United States continue to invest in critical 
technical and manufacturing capabilities and infrastructure. If 
confirmed, I will make this a priority and continue the strong 
partnership between the Departments of Defense and Energy that is 
essential to maintaining the U.S. nuclear deterrent.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. If confirmed, I would continue to work to ensure a safe, 
secure, and effective nuclear deterrent and to advocate for the 
required funding. Maintaining a safe, secure, and reliable nuclear 
stockpile is a critical national security priority, and the section 
1251 report represents the administration's current best estimate of 
required funding. At the same time, like DOD delivery system 
sustainment and modernization efforts, NNSA nuclear weapons complex 
modernization must be undertaken in a cost-effective manner. DOD has 
already taken steps to reduce the estimated cost of the Ohio-class 
replacement ballistic missile submarine and new Long-Range Strike 
Family of Systems.
    Question. Can DOD afford the plan set out in the report?
    Answer. Given the potentially significant future budget reductions 
we are facing, DOD is examining all programs for affordability and 
national security requirements, including our plans for modernization 
of the nuclear enterprise. If confirmed, I will continue to work with 
Congress to ensure that our most critical national security 
investments, including those in the nuclear enterprise, are balanced 
with the realities of the current fiscal environment.
    Prior to completing this modernization effort, do you believe it 
would be prudent to consider reductions below New START treaty limits 
for the deployed stockpile of nuclear weapons?
    I support the Obama administration's agenda for reducing global 
nuclear dangers and pursuing the goal of a world without nuclear 
weapons, as outlined in the 2010 Nuclear Posture Review. I also support 
the NPR's conclusion: ``The United States will retain the smallest 
possible nuclear stockpile consistent with our need to deter 
adversaries, reassure our allies, and hedge against technical or 
geopolitical surprise.'' Reductions below the New START treaty limits 
must only be considered in the context of the geopolitical environment 
and the status of our nuclear stockpile and the enterprise 
modernization effort.

                       TACTICAL FIGHTER PROGRAMS

    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the set of programs to modernize 
our tactical aviation forces with fifth generation tactical aircraft 
equipped with stealth technology, to include the JSF.
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. Based on current and projected threats, I believe it is 
critical that we transition to a 5th generation capability across the 
Services while maintaining sufficient legacy inventory capacity to 
prevail in current and near-term conflicts. Over the next 10 years, the 
Department's 5th generation capability will grow from a relatively 
small percentage to approximately one third of the TACAIR force 
structure. In the 20 years that follow, JSF will become the mainstay of 
the force. We need JSF to deal with advanced fighters and surface-to-
air missiles worldwide, especially in the stressing electronic warfare 
environments of the future. Additionally, the F-22A modernization 
program will provide improved capability to ensure the United States is 
unmatched in both fighter and ground attack capability as JSF begins 
operational employment. To ensure we have sufficient capacity of 
fighter attack aircraft during the transition period, the Department 
has continued the production of the F/A-18E/F, extended the service 
life of the Department of Navy's older F/A-18s, and invested in 
affordable F-15, F-16, and A-10 sustainment and modernization efforts.
    Question. What is your view on the affordability of these programs?
    Answer. I believe affordability is critical to these programs, as 
well as all of our acquisition programs and services. As Under 
Secretary, I have instituted a number of strategic initiatives designed 
to target affordability and control cost growth. Examples include 
establishing an affordability target at Milestone (MS) A for both 
production and sustainment costs and the requirement to report on 
systems engineering trades showing how key design features affect the 
target cost at MS B. Additionally, I believe the establishment of 
``Should Cost'' targets will provide us with a continuous focus on 
reducing program cost during planning and execution, especially in 
preparation for contract negotiations. In looking at the affordability 
of the current TACAIR modernization programs, I believe we can do 
better at controlling costs, but I also believe that these programs are 
affordable if managed properly. The JSF program has a track record of 
cost growth that must be reversed. Last year I directed a bottom up 
technical review of the development and test program to provide us the 
best assessment of the time and costs required to complete the 
development phase. We are aggressively managing the early production 
contracts to ensure the Government achieves best value in procurement. 
Finally, the estimate for life-cycle program costs is very concerning 
to me and the Department is taking a very detailed look at all aspects 
of JSF operations, support, and sustainment to identify best value 
solutions to control the lifetime operating and support costs for the 
JSF fleet.
    Question. Even if all of the current aircraft modernization 
programs execute as planned, the average age of the tactical, 
strategic, and tanker fleet will increase. Aging aircraft require ever-
increasing maintenance, but even with these increasing maintenance 
costs, readiness levels continue to decline.
    Can both the maintenance of the legacy force and the modernization 
efforts be affordable at anywhere near the expected budget levels?
    Answer. Based on expected budget levels, I believe there will have 
to be some tradeoffs. Balancing the costs of maintaining an aging 
aircraft fleet with recapitalizing and modernizing that fleet is one of 
the most difficult problems the Department will deal with over the next 
few years. The austere fiscal environment we currently face, and the 
projected future budget levels we anticipate, make the problem 
challenging. As part of addressing increasing maintenance costs and 
declining readiness levels, we must improve how we currently do 
business. I believe we can do that by working with our industry 
partners to achieve more efficient and cost-effective supply chain and 
logistics management. We are also taking Service best value processes 
and mandating establishment across DOD, such as the Navy's predecessor 
plan to the Department's Superior Supplier Incentive Program (SSIP) and 
the Air Force's initiatives to improve the management of services 
contracts. I believe that an affordable JSF is absolutely vital if the 
Department is going to be able to meet the capability and force 
structure requirements that the combatant commanders, Services, and 
warfighters need.
    Question. Some critics believe that there is still too much service 
parochial duplication in procuring new systems.
    Do you agree with these critics?
    Answer. In part, I do. I would offer that the Department is 
improving in this area but can certainly do better. Procuring systems 
that duplicate or overlap Service requirements is inefficient and does 
not provide the best value for defense spending.
    Question. What steps have you taken as Under Secretary to reduce 
such duplication?
    Answer. I have taken a number of steps to reduce duplication. 
Conducting comprehensive cross-Service warfighting portfolio reviews is 
part of the Better Buying Power initiative. Additionally, I meet 
regularly with the Service Acquisition Executives (SAE), both 
individually and collectively. These meetings help ensure that the SAEs 
are kept up to date on policy, guidance decisions, and direction, and 
they allow me to gain insight into service-specific acquisition issues 
and direction. Open and direct communication with the SAEs has helped 
in identifying common capability requirements prior to Materiel 
Development Decision milestones. As a participant in the Department's 
budget process, I have worked with the Deputy Secretary, the Services, 
and others to eliminate duplication.
    Question. What additional steps, if any, do you believe the 
Department should take in the future?
    Answer. Last year, Secretary Gates directed the Department to 
pursue a wide-ranging efficiencies initiative. This effort extends well 
beyond removing inefficiencies associated with duplication. Working 
with the senior leadership across the Department's acquisition 
community, I drafted guidance focused on obtaining greater efficiency 
and productivity in defense spending. The guidance covered five focus 
areas: (1) Target affordability and control cost growth; (2) 
Incentivize productivity and innovation in industry; (3) Promote real 
competition; (4) Improve tradecraft in services acquisition; and (5) 
Reduce non-productive processes and bureaucracy. In November of last 
year, I issued direction designed to achieve specific action in those 
initiative areas. Since that time I have worked continuously to follow 
through on the implementation of these initiatives, to adjust them as 
necessary, and to identify other opportunities. I believe this is a 
start; however, there are many additional steps that the Department 
must take in the future to improve the way we do business and deliver 
better value to the taxpayer and warfighter. Improving how the 
Department does business is a continuous process. If confirmed, I would 
intend to focus on these areas and look for ways to expand sound 
business practices more broadly across the Department.

                            UNMANNED SYSTEMS

    Question. Congress has established a goal that by 2015, one-third 
of the aircraft in the operational deep strike force aircraft fleet and 
one-third of operational ground combat vehicles will be unmanned.
    Do you support this goal?
    Answer. I support the goal of fielding unmanned systems with 
greater capability; however, resources should be focused on warfighter 
capability needs and systems that are within technological reach. The 
Department's January 2001 congressional report stated that the 2015 
goal would be largely driven by the pace of the technology and that the 
timelines at the time did not fully support the goal. The Military 
Departments' acquisition strategies did, however, reflect an aggressive 
pace for the fielding of these systems, should the technologies prove 
viable.
    Today, unmanned systems are providing tactical and soldier focused 
capabilities critical to winning the current overseas contingency 
operations in Afghanistan and Iraq. The capabilities needed for these 
conflicts (intelligence, surveillance, and reconnaissance; armed 
reconnaissance; Improvised Explosive Device (IED) detection/disposal), 
however, are not the same as the unmanned capabilities envisioned at 
the time the goal was established. The Department should continue to 
pursue the needed technology and consider unmanned systems on a case-
by-case basis implementing them when it makes sense from a capability, 
technological, and affordability perspective.
    Question. What is your assessment of DOD's ability to achieve this 
goal?
    Answer. Because of technological challenges, an Unmanned Aircraft 
System (UAS) providing an ``operational deep strike'' capability will 
not be fielded by 2015. However, the Air Force and Army are both 
operating armed UASs (MQ-9 Reaper, MQ-1B Predator, and MQ-1C Gray 
Eagle) in current overseas contingency operations. These aircraft are 
providing critical intelligence, surveillance, reconnaissance, and 
strike capabilities to combatant commanders. At this time, because of 
current operations, the Services are focused on higher priority 
missions than deep strike. The Navy has entered the materiel 
development phase of an unmanned carrier launched surveillance and 
strike capability, but with the goal of fielding a UAS with limited 
strike capability by 2018.
    For unmanned ground combat vehicles the Department is more than 4 
years away from a fielded capability that approaches the mobility, 
perception, and intelligence comparable to a trained squad of soldiers 
aboard a Stryker or Bradley combat vehicle or an Abrams tank crew. More 
limited capabilities are feasible, but may not be affordable within 
projected budgets. The Department is actively working on unmanned 
requirements to detect, mark, and report IEDs.
    Question. What steps do you believe the Department should take to 
achieve this goal?
    Answer. The Department should continue robust, focused research and 
development efforts related to UAS and ground robotics technology. This 
is vital to realizing increased unmanned capabilities that are properly 
aligned with evolving warfighter needs, at affordable cost.

                          SHIPBUILDING BUDGET

    Question. With about half of the Navy's construction and 
development dollars being needed to build nuclear submarines, the 
Navy's commitment to building new submarines could crowd out funding 
needed to modernize the surface fleet. With regard to the ballistic 
missile submarine replacement program--a 12 submarine $60 billion 
acquisition program--Admiral Roughead, has stated that, ``[SSBN-X] is a 
strategic national asset and should not necessarily be funded in the 
shipbuilding account.''
    In your view, will the level of funding in the shipbuilding budget 
and certain high-cost programs force the Department to make requirement 
decisions in a constrained budget environment that may not be in the 
best interest for our national security?
    What steps, if any, do you believe the Department should take to 
address this concern and ensure adequate funding for the ballistic 
missile submarine replacement program?
    Do you believe that certain high cost ``national assets'' should be 
funded outside the Services' budgets where they do not have to compete 
with other critical weapon systems modernization needs of the Services?
    Answer. DOD remains committed to sustaining the force structure 
required to maintain our Nation's security, and recapitalization of the 
Nation's sea-based strategic deterrent is critical to this mission. 
While the Ohio Replacement program presents certain resource challenges 
for the Department, we are aggressively acting now, during the design 
phase, to drive down costs while meeting the core military requirements 
for a survivable nuclear deterrent. These efforts, coupled with many 
other significant cost-saving initiatives throughout the Department, 
are critical to meeting our broad national security needs within the 
Department's budget. The Department considers all funding priorities 
together and must frequently make judgments that cross budget account 
lines.

                         INFORMATION ASSURANCE

    Question. Protection of military networks, information, and 
communications is critical to DOD operations. The Department has not 
yet provided Congress with a comprehensive legislative proposal that 
would enable the Department to implement the President's guidance on 
dealing with current and future cyber threats.
    What is your assessment of the cyber security posture of the 
Department's critical information systems?
    Answer. DOD is developing a solid foundation for securing critical 
information systems. Due to the advanced persistent threat, DOD's 
critical information systems, like other critical financial, energy, 
and transportation information systems, are at risk of having their 
vulnerabilities exploited by a sophisticated adversary. To address this 
threat and mitigate these vulnerabilities DOD has implemented and 
continues to improve a capability for protecting and defending its 
networks. Among other actions, the recent establishment of U.S. Cyber 
Command has brought increased operational focus to these tasks.
    Prospectively, an enormous amount of work will be required to keep 
pace with technology and capabilities, and to stay ahead of system 
vulnerabilities that put our information and communications technology 
systems at risk. If confirmed, I will continue the efforts to secure 
DOD's information and communications technology, address cyber 
challenges, and ensure DOD can defend against network adversaries.
    Question. What Department-wide policies or guidance do you believe 
are necessary to address information and cyber security challenges for 
current and future systems?
    Answer. The administration is currently working with Congress to 
develop new cyber legislation, and the Department is an active 
participant in these ongoing discussions. Additionally, the Department 
is currently developing policy and guidance in a number of cyber 
security areas. For example, the Department is developing policy for a 
strengthened insider threat program and is working with other Federal 
agencies on policy and practices that will strengthen the security of 
classified information sharing while still providing the information to 
those who need it when they need it. The Department has also recently 
published revised policy on the use of DOD Public Key Infrastructure 
for user authentication, digital signatures, and encryption, and is 
also currently developing cyber security policy in such areas as supply 
chain risk management, protection of DOD information held by the 
defense industrial base, and continuous monitoring of DOD information 
systems. The Department is also in the processs of consolidating its 
network infrastructure in order to better enable protection of those 
networks. If confirmed, I will assess this issue further, and if I 
determine that additional legislative changes are needed, I will work 
with the administration to provide those recommendations to Congress.

                             CYBER SECURITY

    Question. Deputy Secretary Lynn has been heavily involved in 
developing the DOD cyber strategy.
    If confirmed will you also play a major role in DOD cyber issues?
    Answer. If confirmed as the Deputy Secretary of Defense, I would 
devote significant attention to cybersecurity and more broadly to 
continuing to strengthen the Department's ability to operate 
effectively in cyberspace. If confirmed, I would work closely with the 
Secretary of Defense and others in DOD to build on recent progress and 
continue to improve the Department's and the Nation's cyber security.

                       TEST AND EVALUATION (T&E)

    Question. What is your assessment of the appropriate balance 
between the desire to reduce acquisition cycle times and the need to 
perform adequate testing?
    Answer. I believe that cycle time is best reduced by ensuring 
reasonable requirements are set, by being willing to trade away 
requirements that prove to be excessive, and by controlling 
requirements creep so that development time can be constrained. I 
support rigorous developmental and independent operational test and 
evaluation to provide accurate and objective information on the 
capabilities and limitations of defense systems to both acquisition 
executives and warfighters and to ensure contractors deliver products 
that meet requirements. When systems are urgently needed in the field, 
the imperative for accurate and objective testing is still just as 
important but should be addressed through efforts to expedite the test 
and evaluation process, with some acceptance of risk. This has been 
accomplished successfully for such urgent efforts as the Mine Resistant 
Ambush Protected vehicle program. In those urgent cases some risk could 
be taken, but safety and basic performance had to be verified prior to 
fielding. Testing is needed to validate system performance and I 
believe it is a necessary part of the acquisition process. That said, 
there may be opportunities to achieve this goal through more efficient 
processes than those currently in practice.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through test and evaluation to be operationally effective, 
suitable, and survivable?
    Answer. Systems should demonstrate their effectiveness, suitability 
and survivability through operational testing prior to a full rate 
production decision. In specific cases, based on the nature and 
seriousness of the deficiencies found in testing, it may be acceptable 
to continue production while the deficiencies are corrected. In a 
limited number of urgent circumstances it might also be necessary to 
field a system prior to operational testing in order to address an 
urgent gap in a critical capability. But even in such cases, 
operational evaluation should still be conducted at the earliest 
opportunity to assess the system's capabilities and limitations and 
identify any deficiencies that might need to be corrected.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress which allows him to preserve his independence.
    Do you support the Director of Operational Test and Evaluation's 
ability to speak freely and independently with Congress?
    Answer. Yes.

             FUNDING FOR SCIENCE AND TECHNOLOGY INVESTMENTS

    Question. In the past, the Quadrennial Defense Review and the 
Department's leaders have endorsed the statutory goal of investing 3 
percent of the Department's budget into science and technology 
programs.
    Do you support that investment goal?
    Answer. As a scientist and in my current position, I fully 
recognize the critical importance of a robust science and technology 
(S&T) program that can develop and deliver near-term capabilities and 
maintain long term options for the Department. At this point in the 
consideration of the Department's future budget situation, however, 
every part of the budget must be considered ``on the table''.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. If confirmed, I would work with the Secretary, the Chairman 
of the Joint Chiefs, the Services and others to establish guidelines 
for investment priorities. Based on these priorities, I would work 
through the Under Secretary of Defense for Acquisition, Technology, and 
Logistics to assess the adequacy of the current program and recommend 
changes in the future program to address the Department's priorities.

                                 SPACE

    Question. In your current position you have been the milestone 
decision authority for major space acquisition programs.
    Do you believe that this authority should be retained by your 
successor? Why or why not?
    Answer. For the foreseeable future, I believe that the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) should retain milestone decision authority (MDA) for major 
space acquisitions. Independent acquisition oversight is a statutory 
requirement for Major Defense Acquisition Programs (MDAPs) and major 
space programs should be overseen by the USD(AT&L) in his capacity as 
the Defense Acquisition Executive, consistent with all other MDAPs in 
other domains, including air, sea, and ground. Most of our national 
security space programs, including those executed by the Air Force and 
Navy under title 10 authorities and those executed by the National 
Reconnaissance Office (NRO) under title 50 authorities, entail very 
substantial resource commitments and substantial development and 
acquisition risks. As a result of the hard work of the Service 
Acquisition Executives, the Director of the NRO, their staffs and the 
staffs of OSD and Office of the Director of National Intelligence, we 
are recovering from more than a decade of very serious space 
acquisition shortcomings. While that progress continues, we still 
confront serious challenges in space acquisition, which will become 
even greater in a constrained resource and budget environment. 
Therefore, I believe the USD(AT&L) should continue to be the MDA for 
major space acquisition programs, while working with the Service 
Acquisition Executives, the DNRO, and the ODNI to consider MDA 
delegation on a case-by-case basis at appropriate milestone decision 
points.

                       BALLISTIC MISSILE DEFENSE

    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
starting this year and increasing in capability with each of its four 
phases. Phase 4 of the European PAA is intended to provide a capability 
to defend against long-range missiles that could reach the United 
States, thus augmenting the existing homeland missile defense 
capability.
    Do you support the Phased Adaptive Approach to Missile Defense in 
Europe and, if confirmed, will you implement it?
    Answer. I support the European Phased Adaptive Approach (EPAA) and, 
if confirmed, I would continue to advance the substantial U.S. efforts 
already underway to implement all four phases of the EPAA, as I have 
done as USD(AT&L) and as chair of the Missile Defense Executive Board.
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-Based Midcourse Defense (GMD) 
system to defend the Homeland against attack by a small number of long-
range missiles by countries such as North Korea and Iran, and of 
hedging against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review and, if confirmed, will you 
implement them?
    Answer. Yes, I support the conclusions of the 2010 BMDR and, if 
confirmed, would support continuing U.S. efforts already underway to 
implement the BMDR, as I have done as USD(AT&L).
    Question. Do you agree that our missile defense must be fiscally 
sustainable?
    Answer. Yes, I support the U.S. commitment, described in the 2010 
BMDR, to deploying capabilities that have been proven through extensive 
testing and assessment and that are affordable over the long term.
    Question. The two most recent flight tests of the GMD system failed 
to intercept their targets. The Director of the Missile Defense Agency 
(MDA) has formed a Failure Review Board to determine the root cause of 
the most recent failure and will devise a plan to correct it, including 
two flight tests to confirm the correction. Until the second flight 
test confirms the correction, probably sometime in late 2012, the 
Director of MDA has suspended production of the Exo-atmospheric Kill 
Vehicles (EKVs) of the type that failed last year's flight tests, in 
order to ensure that those EKVs do not contain a flaw that would need 
to be corrected later.
    Do you agree that it is prudent to verify that the flight test 
failure problem has been corrected before continuing production of the 
EKVs, and before building more Ground-Based Interceptors (GBIs) or 
deciding how many additional GBIs may be needed in the future?
    Answer. Verifying and correcting any problems with the EKVs prior 
to continuing production is prudent and supports the policy priority to 
``fly before you buy'' in order to improve reliability, confidence, and 
cost control.
    Question. Do you believe that such verification should include a 
successful intercept flight test?
    Answer. A non-intercept test will provide a more rigorous 
evaluation of the kill vehicle flight envelope than could be achieved 
in an operational scenario flight test. A successful non-intercept 
flight test will sufficiently reduce risk to restart production of the 
EKV, in particular for long-lead items and items common to both EKV 
designs. Certification of the Capability Enhancement II (CE II) EKV 
will remain dependent on a successful intercept.
    Question. Do you support the continued modernization and 
sustainment of the GMD system?
    Answer. Yes. The United States is currently provided protection 
against the threat of ICBM attack from states like North Korea and 
Iran. It is important that we maintain this advantageous position by 
continuing to improve the GMD system.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
nations such as Iran?
    Answer. Yes, cooperation with Russia could strengthen the 
effectiveness of U.S. and NATO missile defenses, as well as those of 
the Russian Federation. Effective ballistic missile defenses devalue 
Iran's ballistic missile arsenal by reducing its confidence that an 
attack would be successful.
    Question. Do you agree that, irrespective of Russian objections, 
the United States is committed to the continued development and 
deployment of U.S. missile defense systems, including qualitative and 
quantitative improvements to such systems?
    Answer. Yes.

                           READINESS FUNDING

    Question. After almost a decade of combat operations, each of the 
military services faces a rising bill for maintenance and repair. The 
Army has stated that reset funding will be needed for at least 2 to 3 
years beyond the end of overseas contingency operations. The Marine 
Corps leadership has acknowledged that a $10 billion bill awaits at the 
end of combat operations, but has requested only $250 million for reset 
this year. The Navy has identified a 1-year backlog of deferred ship 
and aircraft depot maintenance. The Air Force has requested funding for 
only 84 percent of needed aircraft repairs this year.
    What level of priority do you place on reset and reconstitution 
funding for the Military Services?
    Answer. I place a very high priority on reset and reconstitution 
funding for the Military Services. The current requests reflect the 
difficult challenge of balancing investments in deployed readiness, 
which is a top priority to support troops in the field, with 
investments in non-deployed readiness such as reset and reconstitution. 
It is imperative that Overseas Contingency Operations (OCO) funding for 
reset and reconstitution continue to be enacted for 2 to 3 years after 
a drawdown of forces to fully reset the forces.
    Question. What steps would you take, if confirmed, to address 
maintenance backlogs and ensure that the Military Departments request 
adequate funding for reset, reconstitution, and other maintenance 
requirements?
    Answer. I will work to ensure that the Department properly 
considers and balances maintenance and reset requirements with fiscal 
realities and future risk during Program and Budget development.

           PROTECTION OF U.S. FORCES AGAINST INTERNAL THREATS

    Question. On November 5, 2009, a gunman opened fire at the Soldier 
Readiness Center at Fort Hood, TX, killing 13 people and wounding or 
injuring 43 others. A DOD review of the attack released in January 2010 
concluded that the Department was poorly prepared to defend against 
internal threats, including radicalization among military personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. I understand that the Fort Hood review released by DOD in 
August 2010 included 79 recommendations on how to improve personnel 
policies, force protection, emergency response and mass casualty 
preparedness, and support to DOD healthcare providers. DOD has 
completed implementation of half of these recommendations.
    If confirmed, I would work to ensure that all the lessons learned 
and recommendations for improvement continue to be implemented and 
would work closely with Members of Congress to ensure that DOD is 
prepared to defend against internal threats, including radicalization 
among DOD's military and civilian personnel.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. The findings and recommendations of the Fort Hood Review 
are the foundation of the Department's current strategy. Leadership, 
clear guidance, and accountability are key. If confirmed, I would 
review this strategy and how it has been implemented, seek the advice 
of DOD's civilian and military leadership, and consult with Congress to 
ensure that the Department implements the most effective policies to 
prevent and mitigate such threats in the future.

                          RELIGIOUS GUIDELINES

    Question. The Independent Review Related to the Tragedy at Fort 
Hood observed that ``DOD policy regarding religious accommodation lacks 
the clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization.'' Recommendation 2.7 of the Final 
Recommendations urged the Department to update policy to clarify 
guidelines for religious accommodation and Recommendation 2.8 urged the 
Department to task the Defense Science Board to ``undertake a multi-
disciplinary study to identify behavioral indicators of violence and 
self-radicalization . . . ''
    What is your view of these recommendations?
    Answer. The Fort Hood Follow-on Review prepared an implementation 
plan in response to both of these recommendations. If confirmed, I 
would review that report and the progress that has been made to ensure 
DOD policies, programs, and procedures appropriately accommodate the 
free exercise of religion.
    Question. Has DOD updated its policy to clarify guidelines for 
religious accommodation? If so, what is the revised policy?
    Answer. It is my understanding that DOD is updating its policy to 
clarify guidelines for religious accommodation. If confirmed, I would 
review the proposed update to ensure accommodation of servicemembers 
whenever possible without compromising accomplishment of mission, unit 
cohesion, and personnel safety.
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. The military places a high value on the rights of 
servicemembers to observe their respective religious faiths and this is 
reflected in our policies and programs.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. I understand each religious ministry professional has 
committed to functioning in a pluralistic environment and to 
supporting, both directly and indirectly, the free exercise of religion 
by all members of the Military Services, their family members, and 
other persons authorized to be served by the military chaplaincies. If 
confirmed, I will review the relevant policies, seek the advice of the 
military leadership, and consult with Congress to ensure that the 
Department appropriately accommodates the free exercise of religion.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Current policy appears to strike the proper balance by 
allowing chaplains to voluntarily participate, or not participate, in 
settings which conflict with their faith traditions, while also 
ensuring chaplains performing in an interfaith setting, such as an 
official dinner or interfaith memorial service, are mindful of the 
requirement for inclusiveness. If confirmed, I would monitor these 
policies and practices.
    Question. If confirmed, will you work to ensure that a scientific 
fact-based approach to understanding radicalization will drive the 
Department's relevant policies on this topic?
    Answer. DOD has commissioned a Defense Science Board study on 
violent radicalization and plans to commission two additional clinical 
studies to identify any potential indicators of violent behavior in 
military personnel. The results of these studies will inform DOD's 
policies and programs on radicalization. If confirmed, I intend to 
ensure that DOD continues to rely on a scientific, fact-based approach 
to countering radicalization and protecting our force.
    Question. Current policy in the Department gives discretion to 
military leaders to decide whether requests to waive uniform and 
appearance standards should be granted based on religious beliefs. The 
Department has submitted a legislative proposal that would clearly 
exempt the armed services from the requirements of the Religious 
Freedom Restoration Act (RFRA).
    In your view, do DOD policies appropriately accommodate religious 
practices that require adherents to wear particular articles of faith?
    Answer. An important and delicate balance must be struck between 
accommodating religious practices that require adherents to wear 
particular articles of faith and maintaining the military's uniform 
grooming and appearance standards. If confirmed, I will work with the 
leaders of the Military Services to achieve an appropriate balance 
between granting religious accommodations and maintaining the 
military's uniform grooming and appearance standards.
    Question. Do you believe that the Armed Forces should be exempted 
from RFRA? If so, why?
    Answer. The Armed Forces have long relied on uniformity of dress 
and appearance to create a common identity, provide visual reminders of 
shared experiences, reinforce a sense of tradition, and foster pride. 
These factors are understood by the military, and historically by the 
courts, as critical to development of cohesion and esprit de corps, and 
thus to mission accomplishment. In section 774 of title 10 of the U.S. 
Code, Congress established a standard that balances religious 
imperatives with the military's dress and appearance requirements.
    I understand the RFRA establishes a ``very high'' standard for the 
executive branch, including the military, to use when denying any 
request for religious accommodation, which is why the Services have 
asked for an exemption.
    At this time, I do not have an informed view about the specific 
legislative proposal but if confirmed, I would consider this issue 
carefully.

                      MUSLIMS IN THE U.S. MILITARY

    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. The attack at Fort Hood was a tragedy for all involved. It 
is possible that the attack could spur retaliation in the form of 
harassment and violence; it is therefore important that military 
leaders and supervisors take precautions to prevent such occurrences 
and maintain good order and discipline in the force. No form of 
harassment can be tolerated.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. If confirmed, I would continue to advocate for open 
communications in the workplace, decisive action by our military 
leaders and supervisors, and command emphasis on the military standard 
for maintaining good order and discipline. If confirmed, I would also 
review the effectiveness of these feedback systems and take measures to 
improve them, as appropriate.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assault, including providing 
appropriate resources and care for victims of sexual assault. However, 
incidents of sexual misconduct involving military personnel in combat 
areas of operation and at home stations are still being reported.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential or restricted reporting, to be 
effective?
    Answer. Sexual assault has no place in DOD. The Department's zero 
tolerance policy on sexual assault is the right policy. The Chairman of 
the Joint Chiefs of Staff, the Service Secretaries, and the Service 
Chiefs, are continuously and directly engaged in emphasizing the 
importance of responding to sexual assault. It is my understanding that 
according to experts, sexual assaults in both civilian and military 
society are underreported--meaning that the number of sexual assaults 
estimated by anonymous surveys vastly outnumbers reports to police. In 
2005, the Department put in place new policies to prevent sexual 
assault and increase the number of reports received by DOD authorities. 
I understand these new policies have had positive results. However, 
there is still work to do to integrate and continue to improve our 
efforts across DOD and the Services. If confirmed, I will ensure that 
DOD continues to be committed to addressing sexual assault in this 
comprehensive manner.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedure has been put into operation?
    Answer. I am not aware of any specific problems in the 
implementation of the restricted reporting option. It is my 
understanding that restricted reporting allows victims who wish to 
remain anonymous to come forward and obtain the support they need 
following an assault without being identified. I believe that the most 
important results of this reporting procedure should be that victims 
are coming forward so they can receive the care and support they need. 
I understand that the number of victims choosing a restricted report 
has increased by about 7 percent each year since 2007, and in fiscal 
year 2010, restricted reports accounted for about a quarter of all 
sexual assault reports made to the Department. Experts believe these 
are victims who would never have come forward had there not been a 
confidential reporting option. If confirmed, I would review DOD's 
program to gain a clear picture of progress and areas for future 
improvement in sexual assault reporting procedures.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults against contractor personnel?
    Answer. Sexual assault against anyone is unacceptable in any 
location. I do not have enough information to make a comprehensive 
assessment at this time, but it is my understanding that if any of our 
deployed servicemembers, civilians, or contractors is assaulted, he or 
she will receive appropriate and responsive support and care.
    I understand DOD policy mandates a 24-7 response to sexual assault, 
regardless of location. In addition, I understand that DOD personnel 
travelling to combat zones receive pre-deployment training on 
prevention and response procedures in country. Furthermore, it is my 
understanding that the Department takes action against individuals who 
perpetrate sexual assault whenever it has the jurisdiction and 
sufficient evidence to do so. If confirmed, I would ensure that DOD 
continues to address sexual assault comprehensively across the Services 
in all locations. There must be no tolerance in DOD for sexual assault 
in any location, including any of our personnel or others who serve 
with our personnel while deployed in a combat zone.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. DOD is committed to addressing sexual assault in a 
comprehensive, integrated and uniform manner. As stated above, all of 
the Services have been directed to establish guidelines for a 24-hour, 
7 days-a-week sexual assault response capability for all locations, 
including deployed areas. I also understand that the Services recently 
invested $1.8 million to improve prosecutor training and resourcing, 
and that the three military criminal investigative organizations have 
committed to adding over 100 specially trained agents, dedicated to 
sexual assault investigations. While I cannot make a specific 
assessment at this time, if I am confirmed, I would make it a priority 
to evaluate the adequacy and efficacy of training and resources 
allocated to the Services for sexual assault investigation.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. DOD's policies emphasize the commander's role in effective 
response to sexual assault. DOD has taken action to provide training 
for commanders and to ensure adequate training and resources for 
prosecutors and investigators. I have been told that DOD policy 
requires commanders to forward all unrestricted reports to criminal 
investigators. I also understand that DOD's policies seek to build the 
victim's confidence, so that the victim feels able to come forward with 
an unrestricted report and to assist in the investigation, which is 
essential to achieving the goal of accountability. If confirmed, I will 
ensure that accountability, supported by a foundation of victim care, 
remains an important focus of DOD's sexual assault prevention and 
response efforts.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. I believe that sexual assault has no place in the Armed 
Forces. Recently, the Department has assigned a General Officer with 
operational experience as the Director of the Sexual Assault Prevention 
and Response Program office. If confirmed, I would ensure that sexual 
assault prevention and response continues to be a priority for the 
Department, and would work closely with the Secretaries of the Military 
Departments and the Chiefs of the Military Services to ensure that DOD 
maintains senior leadership focus on this issue.
     mobilization and demobilization of national guard and reserves
    Question. In support of the current ongoing conflicts, the National 
Guard and Reserves have experienced their largest and most sustained 
employment since World War II. Numerous problems have arisen over time 
in the planning and procedures for mobilization and demobilization, 
e.g., inadequate health screening and medical response to service-
connected injuries or illnesses, antiquated pay systems, limited 
transition assistance programs upon demobilization, and inefficient 
policies regarding members of the Individual Ready Reserve. Reserve 
Force management policies and systems have been characterized in the 
past as ``inefficient and rigid'' and readiness levels have been 
adversely affected by equipment shortages, cross-leveling, and reset 
policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems remain?
    Answer. I understand that many changes have been made to policies 
governing the utilization of the Reserve components, including: (1) 
providing for a minimum notification period of 180 days prior to 
mobilization; (2) establishing a dwell ratio goal of no more than 1 
year mobilized for every 5 years not mobilized; and (3) limiting the 
involuntary activation of Guard members and reservists to 1 year.
    These changes have improved effectiveness and morale by providing a 
predictable cycle of Active Duty and alert notification well in advance 
of activation, benefitting families, employers, servicemembers.
    A key problem is the lack of an integrated pay and personnel system 
to support Guard and Reserve personnel as they transition between 
various duty statuses. This is compounded by the fact that there 
remains over 30 different duty statuses for Guard and Reserve 
personnel. This diversity of duty statuses is cumbersome and results in 
mobilization and demobilization delays.
    Question. What do you consider to be the most significant enduring 
changes to the enabling of an operational Reserve aimed at ensuring 
Reserve component readiness for future mobilization requirements?
    Answer. I believe the most significant change to the Operational 
Reserve is its acceptance and inclusion as a full partner in the Total 
Force. The use of the Guard and Reserve over the past 10 years has 
proven their exceptional value to the Nation. Their equipping, 
modernization, and readiness are essentially managed in the same manner 
as the Active component. They are ready, capable, and expect to be used 
on a predictable and regular basis.
    Going forward, the Department must maintain Reserve component 
readiness, set expectations with members, families and employers, and 
seek ways to use the Guard and Reserve to the best advantage of the 
Nation. Budgeting for the Operational Reserve is critical. There must 
be a funding stream in the baseline budget that is carried through the 
future years to ensure the Reserve components remain trained, ready, 
and available to meet ongoing and emerging operational requirements. I 
believe the future environment will demand we use all components of the 
Total Force--Active, Guard, Reserve, DOD civilians, and contractors in 
the most efficient and effective manner possible.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves or 
to further enhance their ability to perform various national security 
missions?
    Answer. I believe the Department needs to be able to access the 
Reserve components on a predictable and regular basis. Current 
mobilization authorities have served us well but do not account for the 
continued use of the Guard and Reserve as full partners in the Total 
Force. I support current proposals before Congress to expand section 
12304 of title 10 to increase authorities to fully use the Reserve 
components as a rotational, operational force to augment the Active 
component forces. These proposals will enhance their ability to execute 
planned missions in support of the President's national security 
strategy.

              MEDICAL AND DENTAL READINESS OF THE RESERVES

    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. In order to fully assess the capability of the Reserve 
components, it is critical to measure and report medical and dental 
readiness in a standardized manner. It is my understanding that over 
the past several years, small, but steady improvements have been made 
across the Services, but there is more work to do in confirming the 
medical and dental readiness of the entire Reserve Force.
    Medical and dental readiness is tracked through standardized 
calculations each quarter. Currently, the medical readiness achievement 
goal is 75 percent and DOD is at 63 percent. The dental readiness 
achievement goal is 85 percent, and DOD has met that goal.
    While some progress has been achieved, the medical and dental 
readiness of the Reserve components must remain a priority.
    Question. How would you improve upon the Department's ability to 
maintain a healthy and fit Reserve component?
    Answer. It is my understanding that DOD continues to pursue new and 
improved opportunities to provide flexible options for the Guard and 
Reserve to improve their overall readiness. Producing and maintaining a 
healthy and fit Reserve component requires more than access to health 
care--it also requires command emphasis and individual accountability.
    Recently, the Army Reserve approved and funded two medical/dental 
readiness days per soldier starting in fiscal year 2010.
    Resiliency is a key aspect of Yellow Ribbon Reintegration events. 
At pre-, during-, and post-deployment events, Guard and Reserve members 
and families are given tools to help build resiliency and coping 
skills. These tools encourage open dialogue with families and encourage 
members to maintain mental and physical fitness during deployment 
cycles.
    If confirmed, I would advance health and safety promotion and 
injury/illness prevention policy initiatives to address readiness 
requirements developed from evidence-based research.

                               DWELL TIME

    Question. While dwell time is improving as our forces draw down in 
Iraq, many active duty military members are still not experiencing the 
dwell time goal of 2 years at home for every year deployed.
    In your view, when will the Active component dwell time goal be 
met?
    Answer. The Active component of the Navy, Air Force and Marine 
Corps, on average, are already meeting or exceeding the Department's 
dwell time goal of 1:2. I understand that the Army is now averaging 
better than a 1:1 dwell ratio, with some combat elements meeting the 
goal of 1:2. As we execute our drawdown plans for Afghanistan, these 
dwell times will continue to improve. Recently, the Army has shortened 
deployments for their Active component units to 9 months. These shorter 
deployments will reduce the stress on soldiers and their families. It 
is estimated that Army units will meet dwell time goals within the next 
2 years as the drawdown progress.
    Question. When will dwell time objectives be met for the Reserve 
components?
    Answer. The goal for the Guard and Reserve is 1 year of Active Duty 
for every 5 years at home (1:5). The goal for the Active Forces is 1:2. 
My understanding is that the Reserve components being mobilized are 
currently running closer to the active goal. Active and Reserve 
component dwell and current rotation models are linked and can only 
improve together.

                        ACTIVE-DUTY END STRENGTH

    Question. Secretary Gates announced this year that the Army would 
reduce its end strength by 22,000 through fiscal year 2013, including 
7,400 in fiscal year 2012. This end strength was part of the temporary 
increase authorized in 2009 and was intended to enable the Army to 
cease relying on ``stoploss'' and to make up for a growing population 
of non-deployable soldiers. Beginning in fiscal year 2015, depending on 
conditions on the ground, the Army and Marine Corps plan to reduce 
their permanent end strength and force structure by 27,000 soldiers and 
at least 15,000 marines, respectively.
    Do you agree with this Active Duty end strength reduction plan, 
especially given the fact that the population of non-deployables is 
growing?
    Answer. I am familiar with the Army's and Marine Corps' projected 
personnel reductions, and if confirmed, I would review their respective 
plans to make these reductions. Based on what we know today, and the 
assumptions that have been made, I believe that the troop reductions 
previously announced by Secretary Gates represent a prudent balance 
between meeting operational mission requirements and ensuring the funds 
are available for recapitalization. Both are critical to future 
readiness.
    Question. What is your view of how these planned end strength 
reductions will affect dwell time ratios?
    Answer. The Army and Marine Corps personnel strength reductions, 
starting in fiscal year 2012 for the Army, are based on the assumption 
of a future draw-down in Afghanistan. These are significant reductions, 
but if the Afghanistan force draw-down stays on track, the dwell ratio 
goal of 1:2 for Active personnel should be achieved.
    Question. What effect would inability to meet dwell time objectives 
have on your decision to implement the planned end strength reductions?
    Answer. If confirmed, I would take into consideration our ability 
to meet strategic mission objectives and dwell time objectives prior to 
implementing the planned Army and Marine Corps strength reductions.
    Question. In your view, can the Army accelerate to 2012 more of its 
planned reduction in its temporary over-strength without an adverse 
impact on national security?
    Answer. The Army is developing force reduction plans that consider 
ongoing and projected future operational requirements. Given our 
current commitments around the globe and dwell time ratios, 
accelerating reductions may not be prudent at this time. The Department 
is committed to working closely with the Army to ensure they achieve 
the appropriate personnel strength level and also retain the ability to 
meet national security objectives.
    Question. What would be the effect on dwell time of accelerating 
the Army's force reduction plan?
    Answer. The effect on dwell time would depend on the Army's 
deployment requirements coupled with the pace of its troop reductions. 
I would anticipate the Army might not be able to fully achieve the 
dwell ratio goal of 1:2 during the draw-down phase.
    Question. What are the assumptions regarding ``conditions on the 
ground'' that will allow for the planned reductions beginning in 2015 
to occur on time?
    Answer. We must balance our national security requirements and 
continue to have a ready, flexible, and capable force. The reductions 
in end strength for the Army and Marine Corps beginning in 2015 should 
be predicated on the assumption that we have a much smaller presence in 
Afghanistan at the end of 2014 than we do today. I also would consider 
our progress towards the established security objectives and I would 
solicit the advice of DOD's senior military and civilian leaders prior 
to making any recommendations to the Secretary.
    Question. The Services have requested congressional authorization 
of force management tools to avoid exceeding end strength limits and 
save money.
    In your view, what tools do the Department and Services need to get 
down to authorized strengths in the future, and which of these require 
congressional authorization?
    Answer. Several authorities used during previous force reductions 
have either expired or will be expiring soon, to include Enhanced 
Selective Early Retirement Boards, Reduction in Force, and Voluntary 
Separation Pay. The Department is seeking to renew or extend these 
authorities, and in some cases is requesting new legislation, in order 
to properly size and shape the force. The Department's policy is to 
make maximum use of voluntary authorities. Further, a balanced approach 
must be used to ensure to the greatest extent possible that those 
servicemembers who leave do not possess skills needed over the short 
term.

                          RECRUITING STANDARDS

    Question. Recruiting highly qualified individuals for military 
service during wartime in a cost-constrained environment presents 
unique challenges. The Army has been criticized in past years for 
relaxing enlistment standards in tough recruiting environments with 
respect to factors such as age, intelligence, weight and physical 
fitness standards, citizenship status, tattoos, and past criminal 
misconduct. On the other hand, as the Deputy Chief of Staff of the 
Army, G-1, recently testified, less than 25 percent of all 17-24 year 
olds are eligible to enlist, primarily due to physical and educational 
requirements.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. The current enlistment qualification standards are well-
defined and have stood the test of time. They are driven by the need to 
provide the Services with men and women who are prepared to adapt to 
the rigors of military life and meet performance requirements. To that 
end, the Services carefully screen applicants, who come from all walks 
of life. The Department has two key indicators of recruit quality: (1) 
traditional high school diploma graduates; and (2) above average scores 
on the enlistment aptitude screen (the Armed Services Vocational 
Aptitude Battery or ASVAB). The traditional high school diploma is the 
best single predictor of attrition, while the ASVAB is a robust 
predictor of training and job performance.
    Since it is more costly to recruit such ``high quality'' recruits, 
the Department has used a cost-performance tradeoff model, developed 
under the auspices of the National Academy of Sciences, to set 
recruiting and enlistment goals. The recruit quality enlistment goals 
are 90 percent traditional high school diploma graduates and 60 percent 
scoring above average on the Armed Forces Qualification Test (AFQT), 
the math and verbal components of the ASVAB.
    When recruitment is not difficult, when the supply exceeds demand, 
as in the current environment, Services tend to recruit above the 
goals. When recruitment is more challenging, Services adjust and will 
recruit closer to the goals. During some particularly difficult 
periods, such as 2005, the Army developed special programs to reduce 
the attrition risk related to the enlistment of more individuals who 
did not possess traditional high school diplomas.
    Question. In your view, is there any way to increase the pool of 
eligible enlistees without sacrificing quality?
    Answer. Yes, I believe there are ways to increase the pool of 
eligible enlistees without sacrificing quality. The Services 
continually review medical standards, for example, to ensure they are 
relevant and in the best interest of the military, as well as the 
individual. For example, the Assessment of Recruit Motivation and 
Strength (ARMS) Study provided evidence that recruits who are over body 
fat standards but could pass certain tailored physical tests would have 
attrition rates similar to weight qualified recruits. Since 
implementation of the ARMS program, close to 12,000 soldiers have 
entered the Army with an ARMS waiver across the three components. The 
Services are also constantly exploring ways to improve other screening 
tools - especially with respect to our ability to predict attrition. 
Recent findings suggest the Services may be able to augment their 
screening procedures by incorporating other measures, such as 
personality, to identify applicants who are likely to adapt well to the 
military. If confirmed, I would work with the Services to continually 
find new and better ways to recruit and screen applicants.
    Question. In your view, are there any enlistment requirements or 
standards that are overly restrictive or which do not directly 
correlate to successful military service?
    Answer. I am not aware that the Department's military enlistment 
standards are overly restrictive. The Services employ fitness, 
adaptability, and aptitude standards that correlate to the physical, 
disciplined, regulated lifestyle and cognitive demands needed to 
succeed in the Armed Forces.
    Question. Do you believe that current policies defining three tiers 
of high school diploma credentials, aimed at minimizing attrition 
during the initial enlistment term, should be retained?
    Answer. My understanding is the Services track the attrition rates 
of military recruits by a variety of credential types, and traditional 
high school diploma graduates have lower rates of attrition than any 
other type of credential holder for the first term (3 years) of 
service. While the 36-month attrition rate for traditional high school 
diploma graduates is 28 percent, the attrition rates for other types of 
credential holders ranges from 38-45 percent. That is a meaningful 
difference, because it costs the Services approximately $45,000 to 
replace each individual who fails to successfully complete his/her term 
of service. Given the track record of the current policy, I believe it 
should be retained and augmented as needed to improve the accuracy of 
our ability to predict the attrition risk of individual recruits.

                         WOMEN IN THE MILITARY

    Question. The Navy has opened service on submarines to women, the 
Marine Corps recently expanded service opportunities for women in 
intelligence specialties, and the Army is reviewing its assignment 
policy for female soldiers. The issue of the appropriate role of women 
in the Armed Forces remains a matter of interest to Congress and the 
American public.
    Do you believe additional specialties should be opened up for 
service by women?
    Answer. As the nature of the combat environment has evolved, the 
roles of women in the military have expanded, and will continue to do 
so. It is my understanding that the Department believes it has 
sufficient flexibility under current law to make appropriate assignment 
policy for women. The Department will continue to monitor combat needs, 
and if the Services recommend expanding combat roles for women, the 
Department will notify Congress accordingly as required by statute (10 
U.S.C. Sec. 652 and/or Sec. 6035). Any decision regarding opening 
additional specialties for service by women should be based on our 
obligation to maintain a high state of mission readiness of our All-
Volunteer Force.
    Question. Do you believe any changes are needed in the assignment 
policies regarding women in the Armed Forces?
    Answer. The USD(P&R) is conducting a Women in Services Restrictions 
review of the direct ground combat assignment policy in coordination 
with the Military Departments and the Joint Staff. This report on 
review findings will be provided to congressional defense committees by 
October 2011. If confirmed, I would examine proposed policy changes as 
a result of this review and work with Congress to implement them.

                      RISING COSTS OF MEDICAL CARE

    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, then-Secretary of Defense Gates told an audience at 
Maxwell Air Force Base that ``health care is eating the Department 
alive.'' The administration has proposed health care efficiencies to 
save nearly $8.0 billion through 2016.
    Do you agree with the proposed health care efficiencies?
    Answer. Yes, I believe the proposed efficiencies are modest, 
sensible efforts to control the Department's health care costs while 
ensuring superior levels of care are maintained.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. While the reform proposals included in the fiscal year 2012 
President's budget are a significant first step, I think it is 
important, especially in view of the fiscal challenges we face, that we 
continue to find additional opportunities to control the costs of 
health care. At the same time, we must preserve our ability to provide 
the best health care possible to our servicemembers and their families, 
and especially to our wounded warriors.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. I understand that even with the estimated savings from the 
health care efficiencies proposed in the fiscal year 2012 budget, the 
cost of the Military Health System continues to increase as a 
percentage of the DOD budget and will exceed 10 percent of the budget 
in just a few years. In this fiscal environment, we must make smart 
choices that permit us to maintain a balance between personnel benefits 
and funding for equipment and readiness. If confirmed, I would ensure 
that DOD provides quality care, and it does so in a way that provides 
the best value for our servicemembers and their families, as well as 
the American taxpayer.
    Question. If confirmed, what actions would you initiate or 
recommend to mitigate the effect of such costs on the DOD top-line?
    Answer. While I am not in a position to recommend actions at this 
time, if confirmed, I would work closely with the senior military and 
departmental leadership and the health care community to examine every 
opportunity to manage cost growth while ensuring that military 
beneficiaries are provided the highest quality care possible.

                    PERSONNEL AND ENTITLEMENT COSTS

    Question. In addition to health care costs, personnel and related 
entitlement spending continue to grow and comprise an ever increasing 
portion of the DOD budget. If personnel costs are not curtailed, the 
Nation may find itself with a military that is both too small and 
insufficiently equipped. Both former Secretary Gates and Secretary 
Panetta have called for a comprehensive review of military compensation 
and the retirement benefit.
    How might the retirement benefit, including the provision of health 
care to retirees, be modernized to reflect the needs of a new 
generation of recruits, ensure greater equity between those who serve a 
career and those who don't, while easing the long-term cost to the 
Government?
    Answer. We must maintain a strong, vibrant military force structure 
that will serve us well into the future while also looking at prudent 
ways to control personnel and entitlement spending. If confirmed, I 
would look forward to reviewing proposals that seek to balance these 
objectives.
    Question. What changes should be made to the military compensation 
system, including the one-size-fits-all approach to basic pay, separate 
allowances for housing and subsistence, and the tax treatment of 
various compensation components, to ensure that the compensation 
package is fair, economical, and sufficient to field a high quality 
All-Volunteer Force?
    Answer. I believe we need a military compensation system that 
continues to attract and support the highest quality personnel to 
sustain the All-Volunteer Force while also containing costs. I share 
Secretary Panetta's view that it is appropriate to conduct a 
comprehensive review of the military's pay and benefits structure to 
determine where costs can be contained, while ensuring that we are able 
to attract and support our men and women in uniform and their families 
in a wide variety of situations.

             DEPENDENT CARE AND FLEXIBLE SPENDING ACCOUNTS

    Question. The 10th QRMC recommended providing dependent care and 
flexible spending benefits to active-duty servicemembers. Providing 
these benefits would seem consistent with the initiatives of First Lady 
Michelle Obama and Dr. Jill Biden on behalf of military families. It 
would appear that no new legislative authority is needed for the 
Department to provide these benefits to servicemembers and their 
families.
    If confirmed, would you extend these benefits to the Active Duty 
servicemembers and their families?
    Answer. I support the goals provided for in Dependent Care and 
Flexible Spending Accounts. I believe that we need to continue to 
provide a total compensation package to recruit and retain the military 
servicemembers the Department needs to achieve its worldwide missions 
while at the same time taking care of military families. If confirmed, 
I would review how Dependent Care and Flexible Spending Accounts could 
be integrated into the military's total compensation package while 
recognizing the difficulties of the current fiscal environment.

                SYSTEMS AND SUPPORT FOR WOUNDED WARRIORS

    Question. Servicemembers who are wounded or injured performing 
duties in Operations Enduring Freedom, Iraqi Freedom, and New Dawn 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Walter Reed Army Medical Center (WRAMC) in 2007 
illustrated, the Services were not prepared to meet the needs of 
significant numbers of returning wounded servicemembers. Despite the 
enactment of legislation and renewed emphasis, many challenges remain, 
including a growing population of soldiers awaiting disability 
evaluation.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. The Walter Reed revelations were a sobering moment for both 
Departments. The progress, focus, and improvements in this area have 
been substantial since 2007. In the 2\1/2\ years that I have been 
visiting wounded warriors and their families, I have seen advances in 
the knowledge and understanding of the prevention and treatment of 
wounds and their effects on individuals and families. But I believe 
there is more to learn, and more to be done. If confirmed, this would 
be a continuing priority of mine.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. The high priority the Department has placed on caring for 
our wounded warriors and their families is one such strength. The 
sustained focus and assessment of the needs of the wounded, ill, and 
injured servicemembers in areas such as traumatic brain injuries, 
stress, and amputation allows the Department to continue its progress 
in caring for these members.
    It is also important that the Department take a collaborative 
approach to caring for our wounded warriors with the Department of 
Veterans Affairs, the Department of Labor, the Office of Personnel 
Management, and other stakeholders to ensure that the needs of 
servicemembers and their families are met across the Federal 
Government.
    Question. What are the weaknesses that need to be corrected?
    Answer. The Department should continue to identify opportunities 
for capturing best practices and implementing improvements by using a 
proactive assessment and evaluation process that corrects weaknesses in 
a cost-efficient and timely manner. Additionally, the Department needs 
to be proactive in identifying post-traumatic stress in our Reserve 
components who, following redeployment, return home and are removed 
from a military environment and chain-of-command.
    There are also opportunities to try new programs in the areas of 
employment, credentialing, licensing, and education and training for 
our wounded that can be explored.
    Lastly, a frequent complaint of our servicemembers is that services 
are simply not delivered in a timely manner. Our application of any 
program, whether aimed at transition services or care, needs to be 
timely in order to be effective.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. The Department needs to regularly evaluate and ensure that 
current programs and policies are current, helpful, and productive. 
Outcome assessments need to be conducted with adjustments made, as 
needed, to ensure necessary resources are in place to properly take 
care of our recovering wounded, ill, and injured servicemembers and 
their families.
    We must also continue to approach this from an interagency 
perspective. There are many agencies that want to contribute and help. 
The Department must ensure resources are fielded in a harmonious and 
productive manner.
    In addition, in August 2011, the President directed DOD and the 
Department of Veterans Affairs (VA) to develop reforms to ensure that 
every servicemember receives the training, credentials, and education 
they need to transition to the civilian workforce or to pursue higher 
education.
    This DOD and VA-led task force will be an important part of our 
ongoing efforts to better assist our servicemembers as they return to 
civilian life.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES). A 
DES pilot program and an Integrated DES program have been established 
to improve processing of servicemembers.
    What is your assessment of the need to further streamline and 
improve the Integrated DES?
    Answer. The revised and improved Integrated Disability Evaluation 
System (IDES) developed by DOD and VA is an improvement over the legacy 
system. It is fairer and faster than the system it replaced. It has 
also eliminated the gap in pay and benefits that always happened under 
the old system that was executed by the two Departments. The chief 
problem with the IDES is that it takes too long.
    Question. If confirmed, how will you address any need for change, 
particularly the Army's growing population of non-deployable soldiers 
and their need for expedited disability evaluation?
    Answer. If confirmed, I would assist the Secretary in executing the 
fielding of the IDES and in concurrently fielding enhancements to IDES. 
These enhancements would ensure that timeliness is improved and best 
practices shared. In any area where it is determined that legislative 
action could help improve this process, I would follow up with 
Congress.

             SUICIDE PREVENTION AND MENTAL HEALTH RESOURCES

    Question. The numbers of suicides in each of the Services has 
increased in recent years. The Army released a report in June 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors. In 
addition, studies conducted by the Army of soldiers and marines in 
theater are showing declines in individual morale and increases in 
mental health strain, especially among those who have experienced 
multiple deployments.
    In your view, what role should DOD play in shaping policies to help 
prevent suicides both in garrison and in theater and to increase the 
resiliency of all servicemembers and their families, including members 
of the Reserve components?
    Answer. Every suicide among members of the Armed Forces is tragic 
and the Department has a responsibility to address the factors that 
contribute to suicidal behavior among our military men and women, 
whether they are deployed, at a military installation, or in their home 
communities. All of the Services have established robust suicide 
prevention programs, and senior leaders across the Department are 
engaged to address this very important issue. In addition to 
identifying and reducing risk factors primarily through prevention, we 
have undertaken multiple initiatives to increase protective factors. 
The Services have made significant efforts to build resilience among 
our servicemembers to enhance the key protective factors that enhance 
performance and increase the overall readiness of the force. I 
understand that the Final Report of the Department of Defense Task 
Force on the Prevention of Suicide by Members of the Armed Forces is 
being used as a vehicle to review all Departmental policies and 
procedures related to suicide prevention. The Department's 
Implementation Plan based on these recommendations is undergoing final 
review and will be delivered to Congress soon. If confirmed, I would 
ensure that the Department stays focused on this very important issue 
and continues to improve suicide prevention policies and processes.
    Question. What is your understanding of the action that OSD and the 
Army are taking in response to the June 2010 Army report, and the data 
in Chapter 3 (``The Lost Art of Leadership in Garrison'') in 
particular?
    Answer. I am fully aware that sustaining a force steadily engaged 
in combat for over a decade has unexpected challenges. Unfortunately, 
some of those challenges include a rise in ``high risk'' behaviors and 
suicides. The Army's Health Promotion and Risk Reduction Task Force was 
created to identify program and policy changes needed to respond to 
issues identified in this and other related reports. I understand that 
the Task Force is in the process of implementing 417 actionable tasks 
to rapidly improve Army health promotion, risk reduction and protection 
policies, programs and processes and is making significant progress. If 
confirmed, I would work to ensure that the Department brings these 
tasks to completion and that the Services share lessons learned to 
jointly address these risk factors.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. Ensuring that our servicemembers and their families have 
sufficient access to the behavioral health resources that they need is 
critical to the wellness of our total force. The Department has been 
working to determine workforce requirements for behavioral health 
professionals, and how best to utilize all of the medical, educational, 
and counseling resources available. I understand that there has been 
significant progress in this area, but there is still room for 
improvement. If confirmed, I would monitor how well we are meeting 
these goals by assessing current utilization rates and further 
determining ways in which we can leverage more resources for our 
servicemembers and their families.

                        MILITARY QUALITY OF LIFE

    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care, and morale, welfare, and 
recreation services.
    How do you perceive the relationship between military recruitment 
and retention and quality of life improvements and your own top 
priorities for the Armed Forces?
    Answer. I know that quality of life factors, such as the ones 
mentioned above, contribute significantly to recruiting and retention. 
Surveys and studies have shown that a servicemember's satisfaction with 
various aspects of military life, as well as the family's experience 
and support for staying in the military, have a strong influence on the 
member's decision to reenlist. One good example that influences 
retention is the Department's military child development program. This 
program provides quality, affordable child care for over 200,000 
children every day, permitting servicemembers and their working spouses 
to be more committed and successful in their respective careers. The 
degree of success in meeting those needs can have a strong influence on 
servicemembers' decisions to continue their military careers. If 
confirmed, I would monitor how effectively DOD programs, in conjunction 
with community efforts, not only meet the needs of servicemembers and 
their families but also contribute to the readiness of the Total Force. 
Taking care of servicemembers and their families is one of the 
Department's top priorities.
    Question. If confirmed, what further enhancements to military 
qualify of life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. DOD is undertaking a number of initiatives to improve the 
well-being of the Total Force. These initiatives include expanding 
child care services, modernizing the DOD schools, improving the DOD 
Tuition Assistance program, new spouse education and career 
opportunities, and expanding counseling support for geographically-
dispersed military members and their families. If confirmed, I would 
look forward to working with the DOD components, advocacy groups and 
Congress to close gaps and reduce overlaps in programs and ensure 
effective communications with families to ensure that they know how to 
access available support programs and services when they need it.

                             FAMILY SUPPORT

    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. If confirmed, I would ensure family readiness remains one 
of the Department's top priorities. The Chairman of the Joint Chiefs of 
Staff and the Presidential Study Directive Nine identified access to 
health care (to include psychological health), military spouse career 
assistance, child care services, and servicemember and family education 
needs as the Department's highest priority family support initiatives. 
I concur and, if confirmed, will work diligently to ensure these areas 
remain at the forefront of the Department's efforts to support 
families.
    Question. If confirmed, how would you ensure that family readiness 
needs are addressed and adequately resourced?
    Answer. I believe that family readiness is correlated with family 
resilience. It is the Department's responsibility to ensure that 
families are well prepared to meet the challenges that come with 
deployment and service. Through focusing on the psychological, social, 
financial and educational well-being of military families, DOD can 
continue to build family resilience. A recent DOD survey of active duty 
spouses shows that families overall are coping well, but certain 
families are more vulnerable--especially our enlisted families and 
those who have recently deployed. Since 2006, active duty spouses have 
reported higher levels of stress in every DOD-wide survey. On the other 
hand, the number of spouses satisfied with military life has increased 
since 2006. I understand that programs like MilitaryOne Source and the 
Yellow Ribbon Reintegration Program have made great strides in 
improving access to resources for families. However, the Department can 
do more, and if confirmed I will seek continued improvements in this 
critical area.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and future reductions in 
end strength?
    Answer. In order to appropriately address the needs of our families 
in today's dynamic environment, it is critical for DOD to build 
community partnerships with Federal agencies, State and local 
governments, businesses, and nonprofit organizations, all of which are 
key stakeholders in meeting the needs of our military families as they 
continue to serve or transition to civilian life.
    Global rebasing, BRAC, deployments, and changes to end strength all 
alter the context of a servicemember's family life and thus the needs 
of family readiness. The Department's efforts to ensure family 
readiness must constantly adapt to these changing conditions.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment, and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. DOD has a duty to ensure that every family has access to 
quality resources, regardless of location. An appropriate network of 
support for our geographically dispersed families must be underwritten 
by a coordinated, community-based network of care, encompassing DOD, 
the Department of Veterans Affairs, State, local, non-profit and 
private providers. It is my understanding that DOD's Yellow Ribbon 
Program has been successful in establishing the required networks, and 
if confirmed, I would assess the program to ensure that it remains 
capable of addressing the support requirements of our Guard, and 
Reserve servicemembers and their families, wherever they serve. In 
addition, I understand that the Joint Family Support Assistance Program 
(JFSAP) has significantly expanded outreach services for military 
members and their families who are geographically isolated from 
installation services.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I would ensure that the Department continues 
to adapt and evolve our resources and programs to meet the needs of all 
servicemembers and their families. For example, we should appreciate 
the fact that we have a very young force, and the information, the 
resources, and the support we provide must be delivered in a manner 
they feel comfortable receiving; otherwise, the information may go 
unheeded and the resources and support may go unused. This means using 
technology, social media, and other innovative means. Additionally, 
there can be a wealth of helpful resources and support resident just 
outside our gates and residing in our communities. Partnerships with 
communities and community programs can therefore significantly enhance 
the Department's efforts to meet the needs of our families. Finally, we 
must continue to build on the great successes in family support that we 
have made since the start of combat operations nearly 10 years ago.
    Question. In your view, are the recent increases in military family 
support (which have risen to $8.3 billion in the fiscal year 2012 
President's budget) sustainable in future years?
    Answer. I believe family programs are sustainable in future years. 
Clearly it will be necessary to review family support programs with 
respect to efficiencies just as every other program in DOD will be 
reviewed, however, the focus should not merely be on improved 
efficiencies. We will need to provide the right programs--the ones that 
are targeted to the needs of our contemporary servicemembers and their 
families and that are shown to be effective in meeting those needs.
 department of defense and department of veterans affairs collaboration
    Question. Then-Secretary of Defense Gates and Secretary of Veterans 
Affairs Shinseki pledged to improve and increase collaboration between 
the respective departments to support military servicemembers as they 
transition to veteran status, in areas of health and mental health 
care, disability evaluation, and compensation.
    If confirmed, what role would you expect to play in ensuring that 
DOD and the Department of Veterans Affairs achieve the administration's 
objectives in DOD and VA collaboration?
    Answer. I understand significant improvements have been made in 
DOD-VA collaboration in the last few years. Secretary Panetta has made 
it clear that he intends to continue the efforts of Secretary Gates and 
Shinseki and seek to accelerate current timelines. If confirmed, I will 
ensure that DOD continues to work closely with VA to support 
servicemembers and their families in all facets of making a seamless 
transition to veteran status.

                 GOLDWATER-NICHOLS FOR THE INTERAGENCY

    Question. The successful integration of joint capabilities within 
the Armed Forces under the Goldwater-Nichols Act has been held up as a 
potential model for integration of military and civilian agencies with 
related missions. A ``Goldwater Nichols Act for the Interagency'' is 
considered necessary by some to force changes in organization, 
training, policies, and procedures in order to achieve unity of effort 
and enhance cooperation between military and civilian departments. 
Presidential Executive Order (E.O) 13434 (National Security 
Professional Development) and DOD's Civilian National Security 
Professional Development Program reflect the intent to improve 
performance in this regard.
    What is your understanding of the concept of ``Goldwater Nichols 
for the Interagency''? What are your views on the merits of mandating a 
Goldwater Nichols Act for the Federal Government designed to achieve 
the goals set forth in E.O. 13434? How would you evaluate the progress 
of DOD and the interagency in achieving the goals of E.O. 13434?
    Answer. I understand that this concept originates from two facts. 
The first fact is that virtually every security problem in the modern 
world requires a joint mix of the skills and authorities that are 
resident in the military; the diplomatic corps; the development, 
intelligence, and law enforcement communities; and other Federal 
agencies. The second fact is that the Goldwater-Nichols Act enabled us 
to combine the efforts of the separate armed forces that constitute 
today's joint force. I believe this is a sound, indeed vitally 
important, concept. If confirmed, I would seek to move this concept 
forward, whether in law or by other mechanisms.
    If confirmed, I intend to reiterate the important role each 
interagency partner plays in supporting our Nation's security. We 
should also continue to adapt the education and training of our 
national security professionals to equip them to meet modern 
challenges. Developing future national security leaders who understand 
whole-of-government operations and thinking will remain an important 
priority.

                         HUMAN CAPITAL PLANNING

    Question. Section 115b of title 10, U.S.C., requires the Secretary 
of Defense to develop and annually update a strategic human capital 
plan that specifically identifies gaps in the Department's civilian 
workforce and strategies for addressing those gaps. DOD has not yet 
produced a strategic human capital plan that meets the requirements of 
these provisions.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes. A strategic workforce plan is essential to ensure a 
capable and mission ready civilian workforce. I understand that the 
Department has committed to a revised plan which meets congressional 
direction, by the end of fiscal year 2015. Interim updates will be 
provided. The revised strategic human capital plan will clearly link 
the missions of the Department to the size, mix and skill sets of 
military, civilian and contractor employees. If confirmed, I will 
review this plan for adequacy before it is submitted.
    Question. Do you see the need for any changes in the requirements 
of section 115b regarding the requirement for a strategic human capital 
plan?
    Answer. Yes, it would be helpful to the Department to report 
biennially on the status of the DOD strategic workforce plan. A 
biennial report will allow time to mature the Department's strategic 
human capital processes, close identified workforce gaps, and implement 
strategies for recruitment and retention of the knowledge, skills, and 
abilities required to accomplish the mission.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes.

                          ALL-VOLUNTEER FORCE

    Question. The All-Volunteer Force came into existence almost 40 
years ago and, since its inception, volunteer soldiers, sailors, 
airmen, and marines have helped to win the Cold War, defeat aggression 
during the Persian Gulf War, keep peace in the former Yugoslavia, 
combat terrorism in Iraq and Afghanistan, and defend freedom around the 
world.
    Are you committed to the All-Volunteer Force?
    Answer. Yes, I am committed to preserving the All-Volunteer Force. 
The All-Volunteer Force has not only met, but surpassed, the visions 
and expectations of its founders, and provided this nation with the 
highest quality, most capable force in its history at a lower cost than 
a conscripted force. The All-Volunteer Force has proved its viability 
and resilience through over a decade of prolonged warfighting.
    Question. Under what conditions, if any, would you support 
reinitiation of the draft?
    Answer. I can think of no likely situation where I would support 
resumption of the draft. The All-Volunteer Force has surpassed all 
expectations of its founders. Today's force is unique because each 
person wearing the uniform today either entered or chose to remain in 
the military during this period of prolonged conflict. The All-
Volunteer Force today is highly educated, of high aptitude, 
disciplined, physically fit, and representative of America. Today's 
recruits are the highest quality we have seen in the past 20 years.
    Question. What factors do you consider most significant to the 
success of the All-Volunteer Force?
    Answer. The success of the All-Volunteer Force is built upon three 
cornerstones: (1) recruiting a quality force; (2) appropriately 
compensating that force; and (3) providing force management policies 
that retain the right kinds of people in the right skills.
    Question. Do you share the concerns expressed by Admiral Mullen 
that there is a growing disconnect between the military and U.S. 
civilian society and, if so, how would you address this problem?
    Answer. Yes, because we want our military to be representative of 
the society which it defends. This is an inherent challenge when the 
Services only take in less than 1 percent of the youth population each 
year. The Department's civilian and military leadership, and the 
Nation's leadership as a whole, needs to work to prevent such a 
disconnect.

                       DETAINEE TREATMENT POLICY

    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes, I believe that DOD's leadership should always be 
mindful of multiple considerations when developing standards for 
detainee treatment, including that the manner in which we treat our own 
detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
    Question. Do you believe that DOD has the authorities it needs to 
detain and try individuals captured in the course of the current 
conflict, where it is appropriate to do so?
    Answer. It is my understanding DOD has the authorities it needs to 
capture, detain, and prosecute by military commission supporters and 
members of al Qaeda, the Taliban, and associated forces.
    It is my understanding over the course of nearly a decade of policy 
development and litigation, the 2001 AUMF has provided the executive 
branch with the legal basis for using necessary and appropriate force, 
including detention, against al Qaeda, the Taliban, and associated 
forces. The United States has relentlessly and effectively pursued the 
enemy under this existing authority, and has successfully defended its 
authority to detain in the Federal courts. DOD is utilizing its 
existing authority under the Military Commissions Act of 2009 to 
prosecute certain of these detainees.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Secretary of 
Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                        U.S. INSTITUTE OF PEACE

    1. Senator Akaka. Dr. Carter, in November 2007, Secretary of 
Defense Robert M. Gates delivered a speech at Kansas State University 
during which he expressed his thoughts that the Department of Defense 
(DOD) needed to enhance its ability to conduct soft power. He stated, 
``In short, based on my experience serving seven Presidents, as former 
Director of the Central Intelligence Agency and now as Secretary of 
Defense, I am here to make the case for strengthening our capacity to 
use `soft' power and for better integrating it with `hard' power.''
    While I firmly believe that a strong and capable military must be 
available if the situation requires, I also feel that a responsive soft 
power capability is essential to our strategy. Do you agree with 
Secretary Gates' assessment and do you believe that organizations such 
as the U.S. Institute of Peace (USIP) can contribute?
    Dr. Carter. Yes, I agree that the United States must strengthen its 
capacity to use ``soft power'', and I believe that organizations like 
the USIP contribute significantly to our collective efforts to manage 
conflict worldwide, particularly in Iraq and Afghanistan.
    In Afghanistan, the USIP is currently addressing the challenge of 
ensuring long-term peace and stability by contributing to the 
achievement of four interrelated goals: strengthening peaceful 
reconciliation and capacity to mitigate conflict; enhancing the rule of 
law; improving cooperation for peace, security, and economic 
development; and increasing understanding and effectiveness of 
operations in Afghanistan. Most notably, the USIP developed and 
continues to refine the curriculum for the Ministry of Defense Advisors 
program, which provides critical U.S. civilian expertise for U.S. 
efforts in Afghanistan.
    In Iraq, USIP synchronized the training of Iraqi facilitators, 
enhancing field coordination with military units and the Department of 
State (DOS)-led embedded Provincial Reconstruction Teams. In the 
Mahmoudiya region of Iraq specifically, these contributions helped 
tribal and local government leaders forge an agreement that led to a 
substantial decrease in violence there. This agreement was viewed by 
local leaders and military officials as a ``turning point'' toward 
peace and stability in one of Iraq's most violent regions.
    Long-term success in Iraq and Afghanistan, as well as overall U.S. 
efforts to prevent conflict and strengthen peace-building globally, 
depend in large part on a holistic approach to foreign engagement and 
assistance, with responsibilities shared across U.S. Government 
agencies and organizations. In order to fulfill these responsibilities, 
DOD's civilian counterparts throughout the government require robust 
capabilities and resources if we are to succeed against the wide range 
of threats facing the Nation.

                          FINANCIAL MANAGEMENT

    2. Senator Akaka. Dr. Carter, the National Defense Authorization 
Act for Fiscal Year 2010 requires DOD to provide auditable financial 
statements by 2017. In your responses to the committee's advance policy 
questions, you list as one of your management performance goals, ``To 
strengthen DOD Financial Management to respond to warfighter needs and 
sustain public confidence through auditable financial statements.'' 
After many years of sustained efforts to make this a reality, what are 
the biggest challenges remaining and how are they being addressed?
    Dr. Carter. DOD's legacy financial processes and systems were 
established many years ago and designed to ensure budgetary 
accountability--not meet the proprietary or commercial accounting 
standards called for in the CFO Act, which are necessary to achieve 
auditability. To meet these standards, there is a substantial amount of 
work to be done. Some of the most significant impediments include:

        <bullet> DOD business and financial management systems are not 
        fully integrated and do not always collect data at the 
        necessary transaction level.
        <bullet> Reliable end-to-end processes and internal controls 
        have not fully been defined to support financial reporting.
        <bullet> DOD lacks sufficient operational and financial 
        personnel experienced in financial audits.

    Meeting these challenges and improving our business processes have 
more attention in the Department than ever before. DOD is addressing 
them by changing the way it does business. To realize success, DOD is 
using a streamlined approach, implemented in August 2009, which focuses 
on improving and auditing budgetary and mission-critical asset 
information that informs key management decisions. Improving the 
quality of this information will enable commanders and other leaders to 
better meet mission needs with available resources. I believe this 
alignment of operational and financial objectives is the most effective 
incentive to improve financial management.

                MILITARY LEADERSHIP DIVERSITY COMMISSION

    3. Senator Akaka. Dr. Carter, section 596 of the National Defense 
Authorization Act for Fiscal Year 2009, directed the creation of the 
Military Leadership Diversity Commission (MLDC). The MLDC was given the 
task of evaluating policies to advance minority members of the Armed 
Forces. After 18 months of research, one of the primary findings 
reported by the Commission noted that the Armed Forces have not yet 
found a way to continuously develop senior leaders who are as diverse 
as the population of our country. What are your thoughts on diversity 
in the leadership ranks within the civilian and uniformed members of 
DOD?
    Dr. Carter. DOD looks at diversity as a strategic imperative that 
impacts readiness and mission accomplishment. As Secretary Panetta has 
said, ``If we all look the same, our mission will suffer. If we all 
think the same, failure is certain.'' The Department's leadership is 
committed to building a Total Force that attracts, recruits, develops, 
mentors and retains a diverse workforce now, and well into the 21st 
century. Further, we will communicate this priority clearly and hold 
leadership accountable for advancing minority members of the Armed 
Forces. Because changes in the composition of military leadership will 
be gradual, our commitment to this effort must be enduring.

    4. Senator Akaka. Dr. Carter, if confirmed, what steps would you 
recommend to develop senior leaders who are as diverse as our country?
    Dr. Carter. To develop a cadre of diverse senior leaders, the 
Department, in part, must take the following steps:

    (1)  Sustain engagement with affinity groups to attract talent.
    (2)  Mentor and provide access to key professional assignments to 
promising junior minority members of our Armed Forces so that they can 
attain the necessary skills and qualifications to ascend to senior 
leadership positions over time.
    (3)  Work closely with the Office of Personnel Management as it 
develops an overarching Diversity and Inclusion Strategic Plan for the 
Federal Government and incorporates the tenants of the President's 
Executive Order on Diversity in the diversity strategies DOD develops 
and employs.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                          F/A-18 SUPER HORNET

    5. Senator McCaskill. Dr. Carter, some critics of the F/A-18 Super 
Hornet are incorrectly insisting that the Navy's most advanced high-
performance strike fighter will not be capable of overcoming future 
threats. According to the experts, and that of our troops overseas, 
nothing could be further from the truth. In fact, the Navy has publicly 
stated that the Super Hornet can ``outperform any top-line fighter 
aircraft of today and tomorrow due to its balanced approach to aircraft 
survivability, blending low observable technology with state-of-the-art 
defensive electronic countermeasures, reduced areas of vulnerability, 
and high precision technology air-to-air and air-to-ground weapons.'' 
The missions the Super Hornet can undertake are virtually any combat 
mission, including scenarios for first-day-of-the-war strike and every-
day-of-the-war dominance. In Afghanistan, the Super Hornet is 
conducting a majority of the sorties that provide ground cover for our 
men and women in combat.
    The Super Hornet is also the Navy's model procurement program. 
Since 2007, all Super Hornets have been delivered on or ahead of 
schedule and below estimated program cost. The congressionally-approved 
third Multi-Year Procurement (MYP) contract for F/A-18E/F aircraft will 
save an estimated $818 million over single-year contracts, and the 
$52.7 million fly-away cost per aircraft and low sustainment costs make 
the Super Hornet the best value for money of any strike fighter in the 
U.S. inventory.
    Considering how well the F/A-18 program has delivered advanced 
capability and the potential of the Super Hornet, along with the high 
return the U.S. taxpayer has received for the funds invested in the F/
A-18 program, do you think it's prudent to take funds away from the 
program to invest in other tenuous tactical aviation programs, as some 
of my colleagues have recently advocated?
    Dr. Carter. All Naval Aviation programs are feeling the impact of 
the current fiscal environment. Direction from Congress and the 
President indicates DOD's and Navy's Total Obligation Authority will 
decrease over the Future Years Defense Program (FYDP). The Navy's 
aviation investment provides the capability needed to meet current and 
projected national security objectives, while prudently balancing 
security risks against these fiscal realities. The Super Hornet program 
is not specifically being targeted to divert funds to another program; 
rather, the Department's goal is to allocate resources to meet the most 
pressing fleet requirements, balancing warfighting risks with available 
resources.
    The savings stated on the MYP III should be approximately $615 
million.

    6. Senator McCaskill. Dr. Carter, could DOD benefit from shifting 
some research and development (R&D) funds to further the development of 
the Super Hornet to increase its already impressive capabilities and 
make it an even more viable complement to other aircraft under 
development that are suffering from cost overruns and development 
delays?
    Dr. Carter. In keeping with the Department's desire to provide a 
flexible and balanced force, DOD's aviation investment plan provides 
the diverse mix of aircraft needed to carry out DOD missions. The F-35C 
is being procured as a complement to the F/A-18E/F, and as such has 
complementary rather than competing or redundant capabilities. 
Continued investment in both programs is required to meet warfighting 
needs. The Department continues to pursue a TACAIR investment strategy 
that provides an ideal balance of versatility, lethality, 
survivability, and capacity.

    7. Senator McCaskill. Dr. Carter, in your testimony before this 
committee in May, you were asked about the alternatives to the 
procurement of the Joint Strike Fighter (JSF) program. In your 
response, you stated that the tactical aviation requirements of 
individual Military Services differ from each other. Specifically, that 
the Navy has a current alternative to the F-35C variant in the F/A-18 
E/F Block II Super Hornet. Because this alternative exists, the 
Secretary of Defense budgeted for 41 additional Super Hornets as the F-
35C has slipped in its delivery schedule to the Navy. Given that the 
Navy has publicly stated that the Super Hornet can undertake virtually 
any combat mission, is it your opinion that the Super Hornet remains a 
viable alternative based on the Navy's tactical aviation needs?
    Dr. Carter. F-35C and F/A-18E/F capabilities are complementary, 
with an ideal balance of versatility, lethality, survivability, and 
capacity that will pace the threat through 2025. A mix of the two 
aircraft in future carrier air wings represents an affordable, timely 
solution to the strike-fighter shortfall and provides conventional 
conflict analysis, validated combat capability, and capacity to support 
foreseen carrier strike group mission requirements. Continued 
investment in both programs is required to meet warfighting needs.

    8. Senator McCaskill. Dr. Carter, at the end of the acquisition run 
for the F/A-18, this country will have only one strike fighter aircraft 
manufacturer. From a competition standpoint, is this of concern to DOD?
    Dr. Carter. The combination of buying more F/A-18E/F, developing 
the F-35, and modernizing the F-22A provides strike fighter capability 
for the Departments of Navy and Air Force for the next 30-plus years. 
Additionally, some legacy strike fighter aircraft have service-life 
extensions that allow those aircraft to fly into the 2030s. By that 
time, the Department projects that it will begin recapitalizing the 
fifth generation force. Industry has already begun examining applicable 
materiel concepts and related technology for a sixth generation 
aircraft and the Department believes the military aircraft industrial 
base will be well positioned to provide competitive alternatives at 
that time.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan

                    SCIENTIFIC AND TECHNICAL TALENT

    9. Senator Hagan. Dr. Carter, during your confirmation hearing, I 
asked you: ``What is DOD doing to recruit and retain the best and 
brightest scientists and engineers? How do you measure the 
effectiveness of these efforts?''
    In response to being asked to provide specific examples, you 
mentioned Defense Advanced Research Projects Agency. What other 
examples can you provide? Also, how do you measure the effectiveness of 
these efforts?
    Dr. Carter. The scientists and engineers at DOD Laboratories serve 
as the foundation of the Department's technical base. DOD uses several 
approaches to recruit and retain the brightest scientists and 
engineers. One approach to maintain an effective cadre of talent is 
through application of the Science and Technology Reinvention 
Laboratory (STRL) program, also known as Demonstration or Demo 
Laboratories program. Directors at an STRL have considerable latitude 
within their existing demo project plans and current regulations in 
establishing personnel policies tailored to meet their specific needs 
for recruiting and retaining the necessary scientific and engineering 
talent to meet program requirements. Under STRL, Lab directors can use 
such approaches as pay for performance systems that reward the highest 
performers; education programs to train the workforce; and various 
hiring flexibilities with the most promising being a direct hire 
authority for candidates with advanced degrees. This direct hire 
authority allows laboratory leadership the ability to quickly hire 
promising new graduates and experienced scientists and engineers.
    Eight of the 15 STRL demo projects are in operation between 9 and 
14 years with the success of their demo interventions last evaluated 
through a pulse survey conducted in 2005. Under Secretary of Defense 
(Personnel and Readiness) staff members are working with demo 
laboratory representatives on an evaluation of current initiatives as 
well as the need for additional flexibilities that may arise. The data 
collected and the analysis will be used to refresh current initiatives 
and develop new ones as appropriate to further enhance the personnel 
demo projects' positive impact on assisting the STRLs to recruit and 
retain the talent needed to accomplish their missions.
    In addition to the STRL demo program, another key element of the 
Labs' ability to maintain a skilled workforce is section 219 of the 
Duncan Hunter National Defense Authorization Act for Fiscal Year 2009. 
This section provides authority for a laboratory director to use up to 
3 percent of all available funds for establishment of high risk 
technology programs, education, and training of the workforce; 
transition of new technology to acquisition programs; and 
infrastructure improvements. One of the highlights of this program is 
found at the Naval Research Laboratory (NRL). The Director established 
the Karle Fellowships (named in honor of two of NRL's most prolific 
scientists) enabling the lab to recruit up to 50 exceptional university 
graduates per year and place them in technology development programs 
for 2 years at no cost to existing programs with minimal administrative 
burden. Upon transitioning to Navy programs, they are highly productive 
and well versed on Service technology needs.
    To measure effectiveness, DOD collects laboratory demographic data 
every 2 years, which allows it to analyze the skills, diversity, and 
experience levels of the technical workforce. Concurrent with 
collection of laboratory demographics, DOD maintains a high level of 
communication with the Military Departments and the labs on the 
technical viability of their workforce. As of the end of fiscal year 
2011, there were no significant gaps in the ability of the Military 
Departments to provide technical support for their programs or deployed 
forces.

           DEVELOPMENTAL AND OPERATIONAL TEST AND EVALUATION

    10. Senator Hagan. Dr. Carter, both the developmental and 
operational test and evaluation communities play a vital role in 
ensuring that weapons systems that are fielded ultimately deliver 
capabilities to the warfighters as promised.
    Developmental Test and Evaluation (DT&E) discovers problems early 
on in the developmental phase when it is significantly cheaper to fix 
them than later on, and Operational Test and Evaluation (OT&E) confirms 
the operational effectiveness and suitability of the weapons systems in 
combat use. Unfortunately, the majority of problems that OT&E is 
discovering with weapons systems should have been detected and fixed 
during the DT&E phase.
    What will you do to ensure that such developmental problems are 
addressed earlier in the lifetime of a weapons program and hence, 
decrease costs and accelerate fielding?
    Dr. Carter. Section 102 of Weapon Systems Acquisition Reform Act of 
2009 enacted 10 U.S.C. 139d (now 10 U.S.C. 139b) establishes the 
position of Deputy Assistant Secretary of Defense for Developmental 
Test and Evaluation with well-defined responsibilities. This office is 
committed to early and continuous engagement with the major defense 
acquisition programs. This engagement includes providing guidance for 
test planning and resourcing, assessing progress-to-plan throughout the 
acquisition cycle, helping programs to adjust to inevitable problems 
during development, and informing decisionmakers about residual risk 
prior to OT&E (e.g., via Assessments of Operational Test Readiness). 
Measurable DT&E performance criteria that address a sound planning 
framework and objective measures of system maturity are developed to 
provide early indicators for decision makers. In addition, efforts are 
ongoing to strengthen the DT&E workforce through more robust education 
and certification requirements and assessment of workforce balance 
across the components. This will make best use of the available 
personnel resources to best influence effective DT&E programs, and 
minimize late and costly discovery of deficiencies.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                              AFGHANISTAN

    11. Senator Begich. Dr. Carter, I support eliminating the threat to 
U.S. national security in Afghanistan and Pakistan by defeating al 
Qaeda and preventing those countries from being safe havens again. 
However, like many of my colleagues, after a decade in the country I am 
concerned about an indefinite U.S. presence. At the end of the year, 
approximately 9,000 Alaska troops will be in the country. I believe we 
need a thorough threat assessment and to concisely define a realistic 
and achievable end-state. What is your assessment of our current 
strategy in Afghanistan and Pakistan?
    Dr. Carter. We are seeing clear progress in our strategy, 
particularly in our core goal of disrupting, dismantling, and 
ultimately defeating al Qaeda. There has been steady progress in the 
development of the Afghan National Security Forces, and there was a 
clear decline in violence in 2011, compared to the previous year. I see 
the greatest risks to our goals and strategy stemming from safe havens 
in Pakistan, and from inadequate progress in developing more inclusive, 
capable, and legitimate Afghan governance.
    Successful U.S. operations in Afghanistan and our efforts in the 
larger region are making the United States safer. In Afghanistan, we 
are helping the Afghan people stand on their own so that Afghanistan 
can become a responsible, stable partner with others in the region, 
and, ultimately, a productive member of the international community. 
The Department is also cooperating closely with Pakistan to put 
unprecedented pressure on al Qaeda. As a result, the United States is 
moving toward achieving the core goal of ultimately defeating al Qaeda.
    As part of this greater effort, DOD is also engaging its partners 
in Central Asia to ensure uninterrupted support to our ongoing 
operations. We are helping to build regional, partner-nation security 
capacity to achieve greater stability in the region, which is vital to 
U.S. national security.

    12. Senator Begich. Dr. Carter, what is your assessment of the 
threat to U.S. national security in the region?
    Dr. Carter. Security and stability in the region--and our success 
in this war--are vital to U.S. national security. Instability, 
extremism, and transnational terrorism in this region are among the 
many challenges that threaten our security, as well as the security of 
Afghanistan, Pakistan, India, and other countries. The attacks of 
September 11, 2001, emanated from Afghanistan and point to the direct 
link between developments in this region and the security of the United 
States.

    13. Senator Begich. Dr. Carter, how do you view the United States' 
long-term commitment--financially, reconstruction-wise, and security-
wise?
    Dr. Carter. The United States and the international community have 
sacrificed an extraordinary amount--in lives and resources--to ensure 
Afghanistan never again provides a safe haven from which al Qaeda and 
its affiliates can attack us. Working with our coalition and Afghan 
partners, the Department remains committed to that goal. Ultimately, 
the Afghans must be responsible for taking the lead for security in 
their country, and the transition process through 2014 to achieve this 
objective is under way.
    To realize lasting security and stability, President Obama and 
President Karzai agreed that the United States and Afghanistan should 
have an enduring strategic partnership beyond 2014. Negotiations on 
that partnership framework are progressing. Likewise, NATO and the 
international community also made clear that their commitments to 
Afghanistan are enduring and will continue beyond the completion of the 
transition to Afghan security responsibility.
    Afghanistan will require international assistance for many years to 
come; this is the reality of more than 30 years of war that shattered 
many of the basic institutions of Afghan society. Our assistance, 
however, must be focused on helping the Afghans take full 
responsibility for their own future. We need to ensure that, as a 
nation, Afghanistan continues to develop the capacity and the resources 
it needs to reduce reliance on international aid.

    14. Senator Begich. Dr. Carter, what is your assessment of 
President Karzai as a partner?
    Dr. Carter. U.S. policy toward Afghanistan is not contingent on a 
single leader. Rather, our commitment is to the people of Afghanistan, 
based on the core interests that we share. President Karzai is the 
democratically elected leader of Afghanistan, and the Department is 
committed to working with him to achieve our shared objectives.
    President Karzai faces a difficult situation in Afghanistan. He is 
fighting an insurgency with the assistance of more than 140,000 foreign 
forces. The burden of this war on the Afghan people is great, and they 
have been traumatized by some 30 years of war. Inevitably, there are 
times of tension or disagreement, and just as President Karzai needs to 
listen to our concerns, we also need to listen carefully to his. 
President Karzai has sometimes aired these concerns in ways we find 
unhelpful, but he ultimately appreciates what the United States is 
doing and the sacrifices made by our forces.

    15. Senator Begich. Dr. Carter, what do you see as the role for DOD 
in building the capacity of the Government of Afghanistan to deliver 
services, provide better governance, improve economic development, and 
fight corruption in Afghanistan?
    Dr. Carter. DOD's primary role in Afghan Government capacity-
building is to support the Ministry of Defense and Ministry of 
Interior, and their ability to provide security for the Afghan people. 
The NATO Training Mission-Afghanistan made significant progress in 
growing the size and capabilities of the Afghan National Security 
Forces (ANSF). This progress is enabling the transition of lead 
security responsibility to the ANSF throughout Afghanistan by the end 
of 2014.
    The DOS and U.S. Agency for International Development (USAID) have 
the lead for broader U.S. governance and development efforts in 
Afghanistan. That said, DOD stabilization activities also contribute to 
this effort in important ways. The Commander's Emergency Response 
Program (CERP) allows U.S. military commanders to carry out small-scale 
projects that meet urgent humanitarian relief or urgent reconstruction 
requirements within their areas of responsibility. Village stability 
operations led by our Special Operations Forces provide security and 
build linkages between villages and district and provincial authorities 
that help the Afghan Government deliver important services. The Task 
Force for Business and Stability Operations (TFBSO) develops near-term 
tactical and strategic programs that create economic opportunities in 
Afghanistan in support of U.S. military commanders' campaign 
objectives. TFBSO's national-level activities, such as its assistance 
to the Ministry of Mines, complement the governance and development 
efforts of U.S. civilian agencies by attracting U.S. and foreign 
investors and helping set the conditions for long-term economic 
development as security improves. Finally, the Afghan Infrastructure 
Fund, bridges the stabilization efforts of DOD with the development 
efforts of USAID by allowing coordinated planning and funding of 
programs that have both near-term stabilization benefits and meet 
longer-term economic development needs.
    To understand the corruption problem more fully and to address it, 
the Commander, U.S. Forces Afghanistan formed Task Force Shafafiyat 
(``Transparency''), which is coordinating the development of anti-
corruption strategies and working to ensure that DOD contracts do not 
foster or enable corruption. These efforts improved the Department's 
ability to know both contractors and subcontractors, and to track money 
flows. They have also led to the adoption of new procedures that reduce 
the chances American resources would inadvertently strengthen criminal 
networks or insurgent groups.

    16. Senator Begich. Dr. Carter, do you have concerns with the 
Afghan Government's ability to sustain our efforts--like funding their 
own security forces? What more can we be doing?
    Dr. Carter. The cost of sustaining the ANSFs will continue to 
outpace the Government of Afghanistan's near-term resourcing abilities. 
The ANSF will require continued international assistance until new 
Afghan national sources of revenue can be brought on-line.
    To that end, DOD is currently looking at how to reduce the 
remaining ANSF development and long-run sustainment costs. This effort 
includes looking into potential force structure changes in a post-
counterinsurgency environment, as well as avoiding redundancies and the 
specific capability standards required for the Afghans. As the 
Department transitions areas to Afghan lead for security, DOD 
emphasized to its allies and partners the importance of maintaining 
their overall financial commitment to security in Afghanistan. In 
addition, DOD allies and partners continue to make contributions to 
ANSF sustainability through multi-donor trust funds, such as the Law 
and Order Trust Fund for Afghanistan. DOD also implemented programs 
through its Task Force for Business Stability Operations to connect 
outside investors to potential Afghan producers, and to help 
Afghanistan build the capacity to develop its mineral and other natural 
resources in environmentally sound and sustainable ways.
    The Department also continues to participate in a concerted 
interagency effort to develop an overall economic strategy for 
improving Afghanistan's economic sustainability, economic development, 
revenue generation, and budget execution. Over time, such efforts will 
help enable the Afghans to take on increasing responsibility for their 
own security forces, with decreasing reliance on donor support.

    17. Senator Begich. Dr. Carter, if confirmed, will you support the 
drawdown in July?
    Dr. Carter. I support President Obama's decision to begin the 
deliberate, responsible drawdown of 10,000 U.S. surge forces from 
Afghanistan over the course of this year, with a further drawdown of 
the remaining 23,000 surge forces by the end of summer 2012.
    At the end of summer 2012--when the U.S. surge forces have 
departed--there will actually be more Afghan and coalition forces in 
the fight than there are today because we will have added another 
55,400 members to the ANSF, not including the Afghan Local Police.
    Additionally, over the coming year, we will continue to develop 
more capable ANSF. A well-trained, operationally effective ANSF will 
allow the Afghans to assume more responsibility as we redeploy the U.S. 
surge forces. As a result, ISAF and the ANSF will be able to maintain a 
necessary level of combat operations against anti-coalition forces 
while completing the successful transition of lead security 
responsibility to the Afghans by the end of 2014.

    18. Senator Begich. Dr. Carter, what is your assessment of the 
progress in developing a professional and effective ANSF?
    Dr. Carter. The Afghans, in partnership with the North Atlantic 
Treaty Organization (NATO) and the International Security Assistance 
Force (ISAF), made tremendous progress toward developing a professional 
ANSF that is both capable of sustaining a properly trained and equipped 
force over the long term and preventing the return of al Qaeda and its 
terrorist affiliates to Afghanistan.
    This progress is due, in large part, to the unifying efforts of 
NATO Training Mission-Afghanistan (NTM-A). Since November 2009, NTM-A 
consolidated all training efforts under one command, and established 
iterative, professional, and standards-based training across the ANSF--
none of which existed before.
    As the Afghan Ministries of Defense and Interior are consistently 
meeting their recruitment goals, NTM-A focused intensely on improving 
the quality of the force, especially in areas of literacy, leadership, 
and operational performance. In 2009, only 4,000 soldiers possessed 
some degree of literacy. Today, NTM-A estimates that the ANSF will 
achieve 50 percent overall literacy rates at the third-grade level in 
2012, with more than 70,000 police and 55,000 soldiers having received 
some level of literacy training. Only 14 percent of the Afghan 
recruiting age population (males aged 18-40 years old) and just 20 
percent of ANSF recruits are literate, so achieving a 50 percent 
literacy rate in the ANSF will not only increase the ANSF's operational 
effectiveness, but it will also contribute to Afghanistan's overall 
economic development in the longer-term.
    The Department is also focused on improving the quality and 
quantity of leaders in order to accelerate the ANSF's development. 
Although the ANSF is challenged by leadership shortfalls, as a result 
of a range of training and mentoring programs over the last 2 years, 
the ANSF noncommissioned officer and officer corps grew by more than 
20,000 leaders, significantly reducing the leadership shortfall. 
Through a strong partnership program with Coalition forces, the ANSF's 
operational performance in the field has also greatly accelerated. In 
January 2011, there were 124 Afghan battalions and headquarters 
elements rated as ``effective with coalition assistance'' or better. As 
of August, 147 units had achieved that standard (out of 184 units 
assessed).
    The result of these efforts--consolidated training and an intense 
focus on literacy, leadership, and operational performance--is that the 
ANSF made significant progress on the battlefield and began 
successfully taking the lead responsibility for security in areas of 
the country that entered transition. By the end of 2014, this 
increasingly capable ANSF will have the lead security responsibility 
throughout the country.

    19. Senator Begich. Dr. Carter, if confirmed, will you make it a 
goal to transfer the security mission to the Afghans sooner than 2014?
    Dr. Carter. I think the current goal of completing transition by 
the end of 2014, as proposed by President Karzai and confirmed by our 
allies and partners at the November 2010 North Atlantic Treaty 
Organization (NATO) summit in Lisbon, remains a feasible and 
appropriate target. However, the Department will carefully monitor 
progress toward this goal, taking into consideration ``on-the-ground'' 
conditions.

    20. Senator Begich. Dr. Carter, if confirmed, what changes, if any, 
would you recommend for U.S. relations with Pakistan, particularly in 
terms of military-to-military relations?
    Dr. Carter. Our military-to-military relationship with Pakistan, 
like our overall relationship, experiences high and low points, and is 
challenged by a lack of trust on both sides. I will continue to support 
DOD's efforts, in coordination with our interagency partners, to 
improve our counterterrorism cooperation and develop a constructive and 
mutually beneficial relationship with Pakistan that is aimed at 
advancing shared national security objectives.

                        SPACE LAUNCH PROCUREMENT

    21. Senator Begich. Dr. Carter, according to publicly disclosed 
reports, the U.S. Air Force Evolved Expendable Launch Vehicle (EELV) 
program costs are set to increase by nearly 50 percent over the next 5 
years. What are the reasons for these costs increases?
    Dr. Carter. The EELV program projects incurring a cost increase on 
EELV of approximately 40 percent over the next 5 years. There are 
multiple reasons why the EELV costs increased. These include 
unrealistically low 1998 competitive prices for the initial EELV orders 
due to the anticipated commercial launch market failing to materialize 
and the rising costs in launch vehicle production due to low order 
quantities causing suppliers to restart and recertify production lines. 
With the cancellation of the National Aeronautics and Space 
Administration (NASA) Shuttle and Constellation programs, overhead 
costs for EELV, especially on propulsion providers, have increased, and 
are being borne almost exclusively by DOD. The recently approved 
acquisition strategy is designed to target these causes and drive 
increased cost stability into the program.

    22. Senator Begich. Dr. Carter, what insights does DOD have into 
its current vendor's cost and pricing structures?
    Dr. Carter. DOD certified cost and pricing data or acceptable 
equivalent data for our existing contracts. We intend to continue this 
practice on future contracts. In addition, we recently gained a great 
deal of cost insight into the EELV main and upper stage engines, which 
are two major cost drivers for the program. The Air Force Program 
Executive Officer for Space Launch (AFPEO/SL) commissioned two separate 
Independent Cost Estimates (ICE), the results of which have been 
provided to program stakeholders. In September 2011, the Air Force Cost 
Analysis Agency (AFCAA) completed an ICE for the RS-68 Delta main 
engine, which is manufactured by Pratt & Whitney Rocketdyne (PWR). The 
ICE was a data driven estimate based on historical data from an earlier 
purchase, other PWR programs and recent subcontractor quotes. The study 
gathered data on labor, material, profit, overhead, and general and 
administrative costs. Also in September 2011, the National 
Reconnaissance Office's (NRO) Cost Analysis Improvement Group (CAIG) 
completed an ICE for the RL10 upper stage engine, for both Delta and 
Atlas configurations, which is also manufactured by PWR. The study used 
historical data from fiscal year 2006-2010 for previous purchases of 
RL10 engines, as well as a bill of material from the PWR proposal. The 
data provided by AFCAA and the CAIG will be used in conjunction with 
existing certified cost and pricing data to assist in negotiations for 
the upcoming EELV procurements, including the fiscal year 2012 and 
fiscal year 2013-2017 buys.

    23. Senator Begich. Dr. Carter, what actions has the Air Force or 
DOD taken to control costs?
    Dr. Carter. In June 2011, the EELV program signed an EELV Launch 
Capability (ELC) bridge contract, changing the contract type from an 
Award Fee type contract to an Incentive Fee construct incentivizing 
cost reductions while maintaining mission success. The recently 
approved EELV acquisition strategy supports a minimum production rate 
by implementing a more economical multi-core approach to procuring 
launch vehicles. The new acquisition is scheduled to be awarded by the 
fall 2012. Key elements of the strategy are a buy of sufficient size to 
ensure economic order quantity prices and a steady launch vehicle 
production rate. This strategy also includes a ``new entrant'' approach 
to allow for near-term on-ramp opportunities and future full and open 
competition with certified launch providers. The Air Force also 
recently completed a Should Cost Review of the EELV program. The Air 
Force incorporated the Should Cost Review recommendations in 
negotiations with the prime contractor on the ELC bridge contract, 
upcoming mission contracts and will use the Should Cost Review during 
negotiations for the fiscal year 2013-2017 acquisition. Additionally, 
the results of two recently completed Independent Costs Estimates (ICE) 
on the RS-68 main engine and RL-10 upper stage engine will be 
incorporated into negotiations for future contracts.

    24. Senator Begich. Dr. Carter, the Government Accountability 
Office (GAO) has reported that ``the Office of the Secretary of 
Defense's (OSD) decision to advance the EELV program from the 
development and production phases, which began in 1998, to the 
sustainment phase will significantly reduce EELV's reporting 
requirements to OSD, such as program cost and status information, 
limiting its own ability to oversee the program.'' Given the lack of 
insight into the program, what specific actions has the Air Force or 
DOD taken to better understand EELV's costs?
    Dr. Carter. The Air Force took a number of steps to better 
understand the program costs. A Should Cost Review was completed in 
June 2010. In March 2011, a Blue Ribbon Panel was led by the SAF/AQ and 
the Program Executive Officer (PEO). In June 2011, the program changed 
the construct of the ELC contract to cost plus incentive fee and 
implemented activity based charging codes used by the prime contractor 
to gain better understanding of costs. The program continues to provide 
cost reporting at the prime and subcontractor level to the Defense Cost 
and Resource Center at OSD, as required by regulation. In addition to 
requiring ULA to submit certified cost and pricing data prior to 
negotiations, the Air Force program team will also conduct a complete 
evaluation of ULA costs and any supporting data for approximately $280 
million of inventory items purchased by Boeing for the initial EELV 
contract in 1998. The evaluation will look at incurred costs, quotes, 
purchase orders, invoices, and will compare prices to similar items 
manufactured on the open market. The Contracting Officer will use this 
data to determine whether the material costs submitted by ULA are 
supported and reasonable. The Defense Contract Management Agency 
approved ULA's purchasing system in September 2011, and the Defense 
Contract Audit Agency is finalizing its cost accounting system audit. 
If the auditors find deficiencies, AFPEO/SL will require the 
Contracting Officer to withhold a certain percentage of all progress 
payments in accordance with the Defense Federal Acquisition Regulation 
Supplement until the system achieves compliance. This should motivate 
ULA to make any other necessary changes to its business systems and 
accounting practices.

    25. Senator Begich. Dr. Carter, as Deputy Secretary of Defense, 
would you require additional cost reporting, such as a reporting 
required in the Selected Acquisition Report (SAR) as provided in title 
10 U.S.C. 2432, of which the EELV program is currently not subject?
    Dr. Carter. Section 838 of the Conference Agreement on the fiscal 
year 2012 Defense Authorization Bill, which originated as amendment 
1071 by Senator McCain, led the Department to further understand and 
appreciate the importance of providing EELV program cost, schedule and 
performance information to the congressional defense committees and OSD 
for oversight. OSD and the Air Force are working together to implement 
the right level of acquisition reporting. Of particular interest is a 
shared concern toward limiting the influence of factors outside the 
program's control that can drive unit cost such as satellite 
constellation sustainment, satellite production schedules, and launch 
range constraints.

    26. Senator Begich. Dr. Carter, currently the EELV program is 
divided into two separate contracts: a cost-plus Launch Capability 
(ELC) contract that annually funds all fixed costs for United Launch 
Alliance (ULA); and a Launch Services (ELS) contract through which the 
Air Force purchases individual launches for its payloads. Combining 
costs associated for each contract, what is the average cost for a 
launch on an Atlas V?
    Dr. Carter. There is no average price for an Atlas V launch or 
launch vehicle. The cost-plus Launch Capability effort provides the 
minimum launch capability required to meet a launch rate of eight 
missions per year. There are 10 variants in the Atlas V launch vehicle 
family, and each one has a different cost. Additionally, every National 
Security Space mission is a different price, depending on the amount of 
mission-specific integration required, launch location, and number of 
the same/similar payloads previously flown.

    27. Senator Begich. Dr. Carter, what is the average cost of a 
launch on a Delta V and a Delta V Heavy?
    Dr. Carter. There is no average price for a Delta IV launch or 
launch vehicle. There are five variants in the Delta IV launch vehicle 
family and each one has a different cost. Additionally, every National 
Security Space mission is a different price depending on mission 
integration costs, payload faring and launch location, and number of 
the same payloads previously flown.

    28. Senator Begich. Dr. Carter, what are the total costs of a 40 
core block buy?
    Dr. Carter. The Air Force has not yet determined the actual size of 
the proposed lot buy of EELV booster cores. The recently approved 
acquisition strategy entails an examination of an economic order 
quantity of EELV booster cores using 40 cores (8 cores per year over 5 
years) as our budget baseline. However, as part of the acquisition 
strategy, the Air Force will request the current EELV provider, United 
Launch Alliance, propose firm-fixed prices against a range of 6-10 
booster cores per year over contract periods ranging from 3 to 5 years, 
thus allowing the program to balance the launch vehicle production rate 
and length of commitment decision among price, operational 
requirements, budget realities, and potential for new entrant 
competition.

    29. Senator Begich. Dr. Carter, I understand the Air Force is 
moving forward with a planned acquisition to purchase 40 rocket booster 
cores from its current provider over the next 5 years (fiscal year 2013 
to fiscal year 2018), at a guaranteed annual rate of eight cores per 
year. What is the basis of this acquisition strategy?
    Dr. Carter. In late 2009, cost increases in the EELV program 
prompted the Commander of Air Force Space Command and the Director of 
the NRO to begin looking at alternative business models. The practice 
of ordering launch vehicles in small quantities was inefficient and did 
not provide a predictable production rhythm sufficient to control 
costs. They commissioned an external study, the Broad Area Review (BAR-
X), conducted by the Institute for Defense Analyses, and an internal 
Tiger Team study as well. The BAR-X looked at the entire spectrum of 
space launch to include infrastructure, while the Tiger Team focused on 
the EELV contracting approach. The BAR-X, Tiger Team, and Air Force 
Program Executive Officer for Space Launch (AFPEO/SL) all recommended 
an annual minimum production rate of launch vehicle cores plus 
associated upper stage engines, payload fairings, and solid rockets for 
multiple years as a baseline.
    The acquisition strategy allows the Air Force to make an informed 
decision on quantity and contract length based on the accumulation of 
sufficient pricing information and incorporates the findings of the 
studies as well as the GAO report. The request for proposal will 
require the contractor to provide prices for a range of quantities from 
6 to 10 cores over a contract period of 3 to 5 years. Specific 
decisions about unit quantities and contract duration will not be made 
until summer 2012, allowing the Air Force time to balance contractual 
commitments with operational requirements, budget, cost reductions and 
the potential for competition. To facilitate our assessment of 
potential new entrants, we are taking specific steps to enable 
competition, including the release--with our partners at NASA and the 
NRO--of the Joint Strategy for New Entrant Certification.

    30. Senator Begich. Dr. Carter, when will the Air Force finalize 
the contract or issue the request for proposal (RFP) for this block 
buy?
    Dr. Carter. I anticipate a formal RFP release in the first quarter 
of 2012 with a decision about quantity and duration during the summer 
of 2012 and contract award by the fall of 2012.

    31. Senator Begich. Dr. Carter, what, if any, are the estimated 
cost savings associated with a 40 core block buy? Has the Air Force or 
an independent examiner looked at the costs savings of a 40 core block 
buy versus a smaller block purchase, such as annual block buys of 8 
cores; a 2-year block buy of 16 cores, etc.?
    Dr. Carter. The Air Force will not know the total cost for the 
upcoming EELV lot buy until the new contract is negotiated. But as the 
question suggests, the Air Force is looking at a range of options for 
the size and length of a lot buy. The Air Force/NRO Tiger Team, Broad 
Area Review (BAR-X) and Air Force Program Executive Officer for Space 
Launch (AFPEO/SL) all recommended an annual minimum production rate of 
launch vehicle cores plus associated upper stage engines, payload 
fairings, and solid rockets for multiple years as a baseline. The 
implementation of this new strategy is intended to reduce costs for 
National Security Space (NSS) launches and stabilize the U.S. Launch 
industrial base. The Air Force will request that the prime contractor 
propose various rate-over-time combinations to inform the Air Force's 
final decision, and provide maximum flexibility to best meet NSS 
requirements and budgets. I am confident that a multi-core buy strategy 
will generate significant savings versus the current practice of buying 
individual missions. In addition to savings on the service portion of 
the contract, there are savings to be generated in the administrative 
area as well. The RFP will require ULA to submit one combined ELC and 
ELS proposal, with separate Contract Line Items (CLINs) for launch 
service and capability, which should significantly reduce the cost of 
proposal preparation and negotiations that were prevalent in past EELV 
acquisitions. This construct will also save both time and money by 
taking advantage of economic order quantity purchasing, as well as a 
single proposal preparation and negotiation. With this proposal, the 
Air Force will understand the specifics of different sizes of buys, and 
therefore, make a fully informed decision in the best interest of the 
taxpayer and DOD.

    32. Senator Begich. Dr. Carter, what is the basis for the planned 
acquisition of 40 cores over 5 years, specifically?
    Dr. Carter. The Air Force did not decide on a firm quantity 
purchase of 40 cores over 5 years; the Air Force acquisition strategy 
allows the Air Force to make an informed decision on quantity and 
contract length based on the accumulation of sufficient pricing 
information, and incorporates the findings of the Broad Area Review 
(BAR-X) and Tiger Team studies as well as the GAO report. The request 
for proposal will require the contractor to provide prices for a range 
of quantities from 6 to 10 cores over a contract period of 3 to 5 
years. Specific decisions about unit quantities and contract duration 
will not be made until summer 2012, allowing the Air Force time to 
balance contractual commitments with operational requirements, budget, 
cost reductions and the potential for competition. To facilitate the 
assessment of potential new entrants, the Air Force is taking specific 
steps to enable competition, including the release--with partners at 
NASA and the NRO--of the Joint Strategy for New Entrant Certification.
    However, it is important to recognize the benefits of pursuing a 
multi-core buy, versus purchasing individual launch missions, as was 
done in the past. The Air Force/NRO Tiger Team, BAR-X and AFPEO/SL all 
recommended an annual minimum production rate of launch vehicle cores 
plus associated upper stage engines, payload fairings, and solid 
rockets for multiple years as a baseline. The implementation of this 
new strategy is intended to reduce costs for National Security Space 
launches and stabilize the U.S. Launch industrial base.
    In addition, the acquisition strategy was designed to support the 
planned launch manifest. For example, 46 launches (some use as many as 
3 cores per launch) are planned from fiscal year 2013-2017, with an 
additional 16 launches in fiscal years 2018-2019. Most of these 
launches will be reflights for programs that have already launched 
satellites to support their respective missions. Therefore, future 
satellites are using identical designs as their predecessors. This 
greatly reduces the chance of production delays and increases the 
likelihood these satellites will launch on schedule. Additionally, the 
Atlas ``white tail'' concept (a common booster core for Atlas rockets) 
and the Delta Fleet Standardization increase flexibility in booster 
assignment, which reduces launch delays.

    33. Senator Begich. Dr. Carter, currently the Air Force has 41 
rocket booster cores purchased from its current vendor for 39 missions 
that have not yet launched. Ten of these cores were purchased in 1998 
under Buy 1. To a significant extent, this excess inventory is 
associated with launch schedule slippage associated with satellite 
manufacturing and integration delays. Should the Air Force and NRO 
launch schedules slip in the next 5 years in the context of a 40 core 
block buy from a single incumbent vendor, how will new entrants be able 
to compete for launches?
    Dr. Carter. The majority of satellite slips seen in the past 10 
years were in the development process. Based on recent experience, I 
anticipate a much more stable flow of satellite launches in this 
timeframe as these programs have transitioned to production. For 
example, fiscal year 2010 and fiscal year 2011 had seven and nine 
launches, respectively, with a 100 percent launch rate.
    In addition, there are more launch requirements during fiscal year 
2013-2017 than the up-to-40 cores budgeted in the buy (approximately 
55). These additional cores may be available for competition with new 
entrants to the program should any become a certified EELV provider. 
The Air Force is committed to competition on the EELV program and is 
taking steps to facilitate new entrant certification.
    The New Entrant Certification Strategy was signed by the Air Force, 
the NRO, and NASA, and was released in October 2011. The document 
defines the coordinated certification strategy for commercial new 
entrant launch vehicles. Also, the U.S. Air Force Launch Services New 
Entrant Certification Guide was signed and released in November 2011. 
The Guide provides a risk-based approach that the Air Force will use to 
certify the capability of potential New Entrant launch companies to 
provide launch services for EELV missions. The Guide lists a set of 
criteria that any New Entrant must meet in order to launch a high-value 
operational satellite. The Guide provides the standard or 
specifications the contractor must meet, the documents or data the 
contractor must provide and the evaluation process the Air Force will 
employ in assessing the criteria. These are important steps toward 
introducing competition into the EELV program. In addition, the Air 
Force will identify specific launch opportunities reserved for 
potential new entrants.

    34. Senator Begich. Dr. Carter, the historical average launches 
under the EELV program is three flights per year over the last 9 years. 
Yet, the Air Force is expecting a launch demand of 13 to 14 launches in 
fiscal year 2013 alone. Has DOD assessed the cost impacts of a 40 core 
block buy in the context of well-documented and empirical schedule 
delays associated with payloads?
    Dr. Carter. The reason for the relatively low number of launches in 
the past is primarily due to slips within the satellite programs. The 
majority of satellite schedule slips seen in the past 10 years have 
been because they were still in the development process. However, as 
these satellites programs are transitioning into production, we expect 
a steadier, more dependable launch rate. For example, fiscal year 2010 
and fiscal year 2011 had seven and nine launches scheduled, 
respectively, with a 100 percent launch rate. We expect this more 
stable flow of satellites to continue.
    To that end, 46 launches are planned from fiscal year 2013-2017 
with an additional 16 launches in fiscal year 2018-2019. Most of these 
launches will be reflights for programs that have already launched 
satellites to support their respective missions. Therefore, future 
satellites are using identical designs as their predecessors. This 
greatly reduces the chance of production delays and increases the 
likelihood these satellites will launch on schedule. Additionally, the 
Atlas ``white tail'' concept (a common booster core for Atlas rockets) 
and the Delta Fleet Standardization increase flexibility in booster 
assignment, which reduces launch delays.
    In addition, based on the current manifest, there are more launch 
requirements in the timeframe of the first buy (fiscal year 2013-2017), 
with approximately 55 cores required in this timeframe. Therefore, I 
see little risk of oversupply on the 40 core buy, should the Air Force 
pursue this course of action.

    35. Senator Begich. Dr. Carter, I understand that DOD is currently 
finalizing its New Entrant certification requirements for the EELV 
program. What actions is DOD taking to ensure that New Entrant 
requirements will be equitable and reasonable to allow for full and 
open competition under the EELV program?
    Dr. Carter. The Air Force developed a strategy that maintains the 
current level of mission success while reducing costs; providing 
opportunities for potential new entrants is an important part of that 
strategy. To that end, the Air Force worked in close cooperation with 
NASA and NRO to finalize criteria by which potential new entrants can 
qualify for EELV-class National Security Space launches. These criteria 
are equitable and reflect our commitment to competition for qualified 
new entrants and our obligation to thoroughly examine the performance 
of competitors. The New Entrant Certification Strategy has been signed 
by the Air Force, the NRO and NASA, and was released in October 2011. 
The document defines the coordinated certification strategy for 
commercial new entrant launch vehicles. Also, the U.S. Air Force Launch 
Services New Entrant Certification Guide has been signed and was 
released in November 2011. The Guide provides a risk-based approach 
that the Air Force will use to certify the capability of potential New 
Entrant launch companies to provide launch services for EELV missions. 
The Guide lists a set of criteria that any New Entrant must meet in 
order to launch a high-value operational satellite. The Guide provides 
the standard or specifications the contractor must meet, the documents 
or data the contractor must provide and the evaluation process the Air 
Force will employ in assessing the criteria. These are important steps 
toward introducing competition into the EELV program. Additionally, SMC 
held an industry day on 1 December 2011, which provided the EELV 
criteria to interested potential space launch providers. The feedback 
was very positive. I believe this new process will provide a level 
playing field for any certified new/entrant to fairly compete for EELV 
missions. In addition, the Air Force will identify specific launch 
opportunities Reserved for potential new entrants.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen

                           ENERGY EFFICIENCY

    36. Senator Shaheen. Dr. Carter, there is no better opportunity for 
DOD to simultaneously satisfy the demands of the current economic 
climate and advance its strategic objectives than by improving energy 
efficiency in our military operations. I am pleased to see the advances 
each of the Services are making toward improving their respective 
efficiency standards. How will you evaluate if the Services are 
effectively sharing technologies and lessons learned to maximize 
investment?
    Dr. Carter. In the current fiscal and strategic environment, the 
Department is preparing to do more without more. Energy is a key part 
of this solution. By operating more efficiently and incorporating 
energy and sustainment considerations into our plans and operations, we 
expect to gain capability without increasing costs.
    The Honorable Sharon Burke, Assistant Secretary of Defense for 
Operational Energy Plans and Programs (ASD/OEPP), leads the 
Department's efforts to ensure energy security for military operations 
by providing overall policy and guidance pursuant to the Operational 
Energy Strategy, released this June. In addition, the ASD/OEPP reviews 
the budgets of each of the Components to certify if the Department's 
budget is adequate to implement the Strategy. This certification 
process allows her to take a comprehensive look across all the 
Department's energy investments. The ASD/OEPP completed her first 
certification for fiscal year 2012 earlier this year and found the 
process very useful to coordinate technology choices and lessons 
learned across the Department.
    Both the Operational Energy Strategy and fiscal year 2012 Budget 
Certification are available online (http://energy.defense.gov).
    In addition, the Department is finalizing our Implementation Plan 
to support the Strategy, which will promote close coordination across 
the Department to identify and share best practices across the full 
range of activities that affect operational energy.

    37. Senator Shaheen. Dr. Carter, energy efficiency technologies 
often require significant upfront investment in order to achieve long-
term savings. How will you make the case that these investments are 
needed given the difficult budget environment and long-term nature of 
efficiency savings?
    Dr. Carter. It is often difficult for planners and decision makers 
to make significant investments upfront to save money in the long term, 
but these sorts of decisions are becoming increasingly important in 
today's budgetary environment. As the Department considers how it 
responds to a more constrained budget environment we must take life-
cycle cost savings into account, like those that result from 
improvements in energy efficiency. Investments in a more energy 
efficient force do more than save money in the long term; they make us 
a more capable and effective force. I would also note that there are 
opportunities for near-term energy efficiency improvements that will 
pay back within the Department's 5-year budget planning horizon.
    A more energy-efficient force will make it easier to sustain and 
operate at the forward edge of the battlefield or in remote regions and 
reduce the risks to our logistics train. Greater energy efficiency 
means fewer resupply convoys, greater tactical stealth, longer strike 
ranges for aircraft, longer time on station for sensors and platforms, 
and greater operational agility. The Department will push forward with 
energy efficiency improvements on this operational basis with the 
consequent financial benefits.
    The Department is also pursuing energy efficiency opportunities at 
our fixed installations, often by leveraging private sector 
partnerships and financing.

                      ACTIVE AND RESERVE READINESS

    38. Senator Shaheen. Dr. Carter, during past difficult fiscal 
environments, whenever a choice seemed necessary between maintaining 
Active or Reserve component capability, that choice invariably seemed 
to be weighted towards the Active component. Given the investment in 
and growing reliance on the National Guard and Reserves over the last 
10 years, do you agree that there is an inherent risk in potentially 
allowing our Reserve Forces to return to their pre-September 11 
readiness?
    Dr. Carter. Yes, I agree that there is an inherent risk in 
potentially allowing the Reserve component to return to pre-September 
11 readiness levels. The Department invested heavily in the Guard and 
Reserve over the past 10 years in order to prevail in today's wars--
meeting the operational demands, while relieving stress on the active 
Component and bringing their unique skills and experience to the fight. 
Given this period of fiscal restraint, DOD must make tough decisions 
and determine acceptable levels of risks in all programs. I will strive 
to make the most efficient use of the Total Force. I appreciate the 
value provided by the Reserve components and believe continuing to 
support their readiness at an appropriate level is an important part in 
meeting that end.

    39. Senator Shaheen. Dr. Carter, what steps would you take to 
prevent this from happening?
    Dr. Carter. At this time, I do not have any specific 
recommendations, but I understand that the Department will continue to 
rely on periodic contributions of the Reserve components as an integral 
part of the Total Force to meet operational demands. This utilization 
of the Reserve components in operational missions helps to maintain 
their continued high readiness levels. Additionally, as Overseas 
Contingency Operations (OCO) funding levels wind down, I believe it is 
important for the Services to ensure the appropriate levels of 
readiness for their active and Reserve components are funded in base 
budgets. Given the fiscal constraints and uncertain security 
environment, I recognize the need for an efficient Total Force. 
Additionally, I understand the importance of maintaining appropriate 
readiness levels for the Reserve components in order to realize the 
value they provide in delivering capability and maintaining capacity.

                  RECRUITING SCIENTISTS AND ENGINEERS

    40. Senator Shaheen. Dr. Carter, DOD and the traditional defense 
industry are facing challenges seeking new graduates with advanced 
degrees in scientific and technical fields to help develop complex 
military systems. What is DOD doing to recruit and retain the best and 
brightest scientists and engineers?
    Dr. Carter. Each of the DOD Science and Technology Reinvention 
Laboratories (STRL) labs has the authority to directly hire scientists 
and engineers with advanced degrees outside of the established Office 
of Personnel Management (OPM) regulations. This allows Demonstration 
laboratory directors to quickly make tentative job offers to university 
graduates and experienced candidates and bring them on-board in only a 
fraction of the time required for conventional government employment 
hiring. This process makes DOD labs more competitive with industry and 
academia for the best and brightest talent. In addition, STRL labs all 
have pay banding systems that enable a director to offer higher 
starting salaries than non-STRL labs or other government organizations. 
While DOD labs may not offer starting salaries as high as many 
employers in the private sector, the type of work offered is often more 
attractive to graduates than the higher salaries in industry. Facile 
hiring procedures might be the deciding factor in a candidate's 
employment selection decision.
    Once on-board a Defense Lab, authorities such as those offered by 
STRL demonstration projects of Section 219 of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009 allow a 
director to better reward high performers and provide training and 
education opportunities to the workforce. Laboratory demographic data 
reveal that the organic workforce is overall more highly educated than 
the general workforce of DOD and the Nation.

    41. Senator Shaheen. Dr. Carter, in your view, are those efforts 
effective?
    Dr. Carter. Yes, the efforts of the Department for recruiting 
scientists and engineers (S&E) are effective. We collect and analyze 
laboratory demographic data that shows our organic workforce to be 
overall more highly educated than the general workforce of DOD and the 
Nation. OSD works closely with the Military Departments to ensure the 
laboratory workforce has the necessary skills and talents to meet the 
needs of the Department and deployed forces. Authorities given to 
laboratory directors via the STRL (STRL, also known as Demonstration or 
Demo Lab) Program and section 219 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 provides them with flexibilities 
to recruit and rapidly hire promising university graduates, reward top 
performers, and provide them with exciting and meaningful work as well 
as training to maintain their skills. As of the end of fiscal year 
2011, there were no identified gaps in DOD's organic laboratory 
workforce. If any shortfalls are identified in the future, we are 
prepared to make the necessary investments in training and education 
programs to strengthen the technical workforce.

    42. Senator Shaheen. Dr. Carter, how do you measure the 
effectiveness of these efforts?
    Dr. Carter. The Assistant Secretary of Defense for Research and 
Engineering (ASD(R&E)) Defense Laboratories Office collects and 
analyzes laboratory demographic data every 2 years. This information 
includes skills, diversity, education levels, years of experience and 
age distribution of scientists and engineers at all DOD in-house 
laboratories. ASD(R&E) provides this data to the Military Departments 
and maintains high levels of communication with them on their programs 
and the status of the laboratory workforce in meeting the technical 
demands of these programs. As of the end of fiscal year 2011, there 
were no reported gaps in the skills of the in-house workforce. If 
shortfalls are identified, ASD(R&E) is prepared to re-allocate Science, 
Technology, Engineering, and Mathematics (STEM) program funds in 
education and training programs for DOD's current organic workforce.
    Implementation of available authorities such as section 219 of the 
Duncan Hunter National Defense Authorization Act for Fiscal Year 2009 
is closely monitored to ensure the Military Departments have the 
ability to execute training and education programs for their workforce. 
Currently, the office of the Under Secretary of Defense for Personnel 
and Readiness (OUSD(P&R)) is working with demo laboratory 
representatives on an evaluation of STRL (STRL, also known as 
Demonstration or Demo Laboratory) Program initiatives as well as the 
need for additional flexibilities that may have arisen since the 
conduct of the last DOD evaluation in 2005. The data collected and the 
analysis will be used to refresh current initiatives and develop new 
ones as appropriate to enhance further the personnel demo projects' 
positive impact on recruitment and retention of scientists and 
engineers. ASD(R&E) supports USD(P&R) and Deputy Assistant Secretary of 
Defense (Civilian Personnel Policy) in the review, refresh, development 
and implementation of STRL program authorities such as direct hire for 
candidates with advanced degrees and pay-for-performance systems that 
both maintain and strengthen the technical workforce of the labs.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                           ACQUISITION REFORM

    43. Senator McCain. Dr. Carter, in my view, one of the lessons of 
the JSF program and other problematic weapons systems procurement 
programs has been the following: DOD tends to start developing weapon 
systems even though its critical technologies are immature; it begins 
testing before the systems' designs are demonstrated as stable; and it 
then ramps up production before testing has shown that these designs 
meet requirements and are producible. This often leads to higher costs, 
lengthy development times, and late deliveries to the warfighter. In 
other words, there tends to be too much concurrency allowing 
development and procurement to go forward simultaneously. Do you agree 
with my appraisal that this is what happened in the JSF program?
    Dr. Carter. I agree that the Department must carefully monitor the 
level of concurrency on the JSF program and other programs. The 
decision to accept a level of concurrency on the JSF program was made 
consciously, based on lessons learned from past programs, and the 
requirement to modernize and recapitalize DOD strike fighter forces. In 
accepting a concurrent program, the Department planned to replace 
aging, less capable legacy fighters with a fifth generation strike 
fighter sooner than what was possible without concurrency. However, 
development of the three variants of the JSF has taken longer than 
originally planned, and the aircraft costs have risen and need to be 
addressed. The Department made procurement and programmatic decisions 
to mitigate the risks due to concurrency and will continue to review 
the program with this in mind.

    44. Senator McCain. Dr. Carter, what, if anything, can be done to 
make sure that DOD doesn't start big weapons procurement programs with 
too much concurrency between development and production in the future?
    Dr. Carter. Starting programs with too much concurrency between 
development and production is counter to the spirit of the reforms that 
the Department has undertaken. Concurrency risks are evaluated on a 
case by case basis, and the Department does not plan to approve of 
concurrency in our acquisitions without well thought out strategies to 
balance risk appropriately. It is also important for us to reevaluate 
concurrency as programs progress to ensure that concurrency risk does 
not increase unacceptably when schedules are adjusted to reflect 
discovery in testing.

    45. Senator McCain. Dr. Carter, in what other areas could, in your 
view, DOD improve how it buys major systems?
    Dr. Carter. The Better Buying Power Initiative includes several 
critical initiatives where the Department can improve the way we 
procure our major systems. The most important of these for buying major 
weapon systems is targeting affordability, controlling cost growth, and 
promoting real competition. Fully implementing these reforms for every 
program will lead to improvements now, and also to economies of scale 
as we successfully apply the same reforms to future programs.
    The Better Buying Power Initiative includes many important reforms, 
but it is inevitably not the Department's final word on acquisition 
improvement. I will continue to work with the acquisition community and 
Congress, as appropriate, to improve the way we buy our major systems.

    46. Senator McCain. Dr. Carter, setting aside those areas squarely 
addressed under the Weapon Systems Acquisition Reform Act (WSARA) of 
2009, what remain the most significant impediments to the ability of 
DOD to effectively procure major systems?
    Dr. Carter. I don't believe the Department has significant 
impediments to effectively procure major systems that are not addressed 
in WSARA. I have found many examples of very effective use of existing 
techniques already present in DOD tool-kits. In the Better Buying Power 
(BBP) initiative, for example, there is nothing really new. BBP places 
an emphasis on thinking very carefully about what the Department is 
trying to achieve and more effectively employing existing practices to 
increase productivity, constantly manage costs, and incentivize 
efficiency.

    47. Senator McCain. Dr. Carter, in your view, what is the next page 
of reforming how DOD procures goods and services generally? Please be 
as specific as possible.
    Dr. Carter. I would continue the effort to improve the defense 
acquisition system consistent with the direction provided in the WSARA 
of 2009. However, while WSARA principles have been widely implemented 
in the Department, more can be done to further them. Furthermore, the 
BBP initiative recognizes that the Department's practices for buying 
services are much less mature than our practices for buying weapons 
systems. The BBP initiative articulates several ways to improve 
tradecraft in services acquisition, which forms the next chapter for 
improving how the Department buys services. To assist with this, each 
of the Military Services has appointed a senior manager for the 
acquisition of services at the general officer/flag/senior executive 
service level. These service managers are responsible for governance in 
planning, execution, strategic sourcing, and management of service 
contracts.
    Another critical area for improvement is the requirements process. 
ADM Winnefeld is currently taking steps to reform the Joint 
Capabilities Integration and Development System (JCIDS) process to 
ensure it actually makes tradeoffs between cost and performance. The 
Department is also working to implement a process for determining 
requirements for services. Lastly, I continue to focus on rapid 
acquisition, both in institutionalizing the processes developing for 
satisfying Joint Urgent Operational Needs (JUONS) and making the entire 
acquisition system more responsive to the Warfighter.

    48. Senator McCain. Dr. Carter, what aspects of the JCIDS are most 
in need of reform?
    Dr. Carter. The JCIDS process most in need of reform is to produce 
clearly articulated Military needs in their operational context, 
informed by rigorous analysis of possible alternatives as to potential 
cost, schedule and performance. A clear understanding of total force 
capability needs and a proposed solution's fit and priority in its 
portfolio's architecture must be effectively communicated to the 
Acquisition Enterprise to enable transformation into design and 
manufacture of appropriately resourced systems and components. The 
JCIDS process formulates warfighter needs from a joint perspective, but 
key inputs lag acquisition activities. Specifically, JCIDS assessment 
must produce and then facilitate better synchronization of operational 
factors such as desired performance parameters developed through 
Materiel Solution Analysis (Analyses of Alternatives and others) in 
preparation for Technology Development--Milestone A, and refined Key 
Performance Parameters for Engineering and Manufacturing Development--
Milestone B. It is also critical that the JCIDS process allow for 
realistic tradeoffs between cost and performance.

    49. Senator McCain. Dr. Carter, if confirmed, will you vet the Vice 
Chairman of the Joint Chiefs of Staff's initiative to reform JCIDS that 
I understand will be issued late this year (or early next year)? If so, 
would you provide your professional views on its likely efficacy?
    Dr. Carter. AT&L has been actively engaged in the Joint Staff Joint 
Capabilities Development Process Review (JCD PR) since the summer of 
2010, and has assisted in formulation of revisions and refinements to 
the process that will be promulgated in November or December of this 
year.
    The JCD PR focused on adjusting Joint Requirements Oversight 
Council support structures and advisory processes to fulfill the 
Council's goal to shape the future Joint Force. These include early 
analysis of desired warfighter performance parameters in terms of 
affordability, risk calculation of tradespace, and prioritization 
across portfolios; and as Technology Development and Engineering and 
Manufacturing further refine those parameters, continuous monitoring of 
a program's achievement of quantified cost, schedule and performance. 
The concurrent, ongoing reforms of Defense Acquisition System processes 
to synchronize with JCIDS and incorporate rapid fielding of urgently 
required capabilities, and continuous coordination with Planning 
Programming Budgeting and Execution, will be necessary for all three 
processes to succeed as the Department evolves toward a new Joint Force 
in the current fiscal environment.

    50. Senator McCain. Dr. Carter, what aspects of the resource 
allocation process, as it relates to DOD's procurement of goods and 
services, is most in need of reform?
    Dr. Carter. Over the last 2 years, the Department has greatly 
improved in the area of addressing urgent needs; however, I believe it 
is necessary to create a closer alignment of the acquisition, 
requirements, and budget processes across the Department to continue 
those improvements. In the same way that the Senior Integration Group 
broadened its purview to cover all urgent warfighter requirements, 
there are other means by which the Department can expand the type of 
cooperation and coordination we have instituted for urgent needs, and I 
plan to make that a priority.

    51. Senator McCain. Dr. Carter, what aspects of how DOD contracts 
for services not addressed in your Better Buying Power Initiative 
remain in need of reform?
    Dr. Carter. One area that was not expressly addressed in my 
September 14, 2010, ``Better Buying Power'' memorandum last year, but 
remains ripe for reform in order to improve DOD's ability to acquire 
services effectively, is to enhance and develop the capability of the 
people who manage service contracts. With the Better Buying Power 
initiative, we have taken the key first step by putting in place senior 
managers at the general officer/senior executive service level in each 
of the DOD components as the responsible agents to oversee the full 
range of activity associated with the management of service contracts. 
In order to carry out their responsibilities, these senior managers 
will need people who have the training and experience necessary to 
execute the unique aspects of a given service acquisition. As noted by 
the Defense Science Board Task Force on Improvements in Services 
Contracting and documented in its report of March 2011, a significant 
number of functional personnel who are now managing service programs in 
the Department are not considered members of the acquisition workforce 
and as such have not received formal training as is mandated for DOD 
weapon system acquisition program managers under the Defense 
Acquisition Workforce Improvement Act. We can improve by extending our 
focus to that community of people. To that end, we have established a 
Functional Integrated Process Team for Services. The Director of 
Defense Procurement and Acquisition Policy will work with the President 
of the Defense Acquisition University to develop training modules, 
tools, and other innovative solutions targeted to prepare this cadre of 
people who are generating requirements and managing a wide range of 
mission capabilities that are fulfilled through service contracts.

    52. Senator McCain. Dr. Carter, are there any elements of your 
Better Buying Power Initiative that you believe could benefit from 
codification in law? If so, please explain.
    Dr. Carter. No, not at this time. The Better Buying Power 
initiative is aimed at improving our effectiveness of execution and 
improving our use of existing tools. Also, the Under Secretary of 
Defense for Acquisition, Technology, and Logistics has sufficient 
authority as the Defense Acquisition Executive to enforce these 
changes.

                    DEFENSE FINANCIAL TRANSFORMATION

    53. Senator McCain. Dr. Carter, for only the second time, the 
position of Deputy Secretary is dual-hatted with DOD's Chief Management 
Officer (CMO). As CMO, you would be responsible for DOD's financial 
management efforts, including getting it fully auditable by 2017, as 
required under law. Why do you think you are particularly well-suited 
and sufficiently qualified to making sure that DOD achieves this 
important objective?
    Dr. Carter. I have served in various positions with DOD, most 
recently as the Under Secretary of Defense for Acquisition, Logistics, 
and Technology. I led the Department's efforts to accelerate the 
fulfillment of urgent operational needs; increase the Department's 
buying power; and strengthen the Nation's defenses against weapons of 
mass destruction and other emerging threats. I also led this Department 
in preparing for new strategic and fiscal realities, shaping key major 
acquisition decisions. I additionally worked to ensure DOD provides 
rapid and responsive support to the warfighter, and to transform the 
way this Department does business and acquires weapons systems. 
Finally, I worked to ensure that the weapons the U.S. military buys are 
more effective and more affordable. I intend to leverage this 
experience to oversee our audit readiness efforts, while relying on the 
Chief Financial Officer and Deputy CMO for day-to-day execution.
    I believe the current streamlined approach to achieving 
auditability, which focuses on improving and auditing the information 
most used to manage, is consistent with these efforts. Improving the 
information used to manage--budgetary and mission critical asset 
information--allows commanders and other leaders to better meet mission 
needs with the available resources. This alignment of operational and 
financial objectives is the most effective incentive to improve 
financial management. I look forward to working with Secretary Panetta 
in driving solutions to the strategic management challenges facing DOD.

    54. Senator McCain. Dr. Carter, what, in your view, are the most 
significant impediments to DOD becoming auditable?
    Dr. Carter. DOD's legacy financial processes and systems were 
established many years ago and designed to ensure budgetary 
accountability--not meet the proprietary or commercial accounting 
standards called for in the CFO Act, which are necessary to achieve 
auditability. To meet these standards, there is a substantial amount of 
work to be done. Some of the most significant impediments include:

        <bullet> DOD business and financial management systems are not 
        fully integrated and do not always collect data at the 
        necessary transaction level.
        <bullet> Reliable end-to-end processes and internal controls 
        have not fully been defined to support financial reporting.
        <bullet> DOD lacks sufficient operational and financial 
        personnel experienced in financial audits.

    55. Senator McCain. Dr. Carter, if confirmed as DOD's CMO, how 
would you address these impediments?
    Dr. Carter. Meeting these challenges and improving our business 
processes have more attention in the Department than ever before. DOD 
will address them by changing the way it does business. To realize 
success, DOD is using a streamlined approach, implemented in August 
2009, which focuses on improving and auditing the information most used 
to manage. Improving the information used to manage--budgetary and 
mission critical asset information--allows commanders and other leaders 
to better meet mission needs with available resources. I believe this 
alignment of operational and financial objectives is the most effective 
incentive to improve financial management.
    The Department is committed to achieving auditability goals and has 
taken significant steps to ensure the goals are achieved by September 
30, 2017, as directed by Congress. There is still a great deal of work 
required to further improve our financial and business processes in 
order to meet this goal. I believe the Department can succeed because 
it has a well-defined plan with specific short-term and interim-term 
milestones, combined with a long-term roadmap. DOD also provided 
resources for the effort (approximately $300 million per year), and a 
clear governance process. Overall accountability rests with me as the 
Deputy Secretary of Defense and CMO. However, day-to-day responsibility 
falls to the Chief Financial Officer (CFO) and DCMO and their staffs, 
as well as line management throughout the DOD business enterprise. To 
meet audit challenges, we have developed an effective partnership 
between the CFO and DCMO communities that will help with 
implementation. The DCMO and the Military Department CMOs play an 
integral role in the governance processes, including overseeing the 
implementation of new systems and the processes they enable. Senior 
leadership within the military components are committed to, and 
accountable for, accomplishing these interim goals.

    56. Senator McCain. Dr. Carter, in connection with his confirmation 
hearing, Secretary Panetta said getting DOD auditable is a ``top 
priority'' and that he would see about accelerating the timetable to 
getting DOD auditable. Do you share Secretary Panetta's views?
    Dr. Carter. I share Secretary Panetta's desire to increase our 
efforts to implement the required changes and accelerate our progress 
in this area.

    57. Senator McCain. Dr. Carter, how would you improve or accelerate 
DOD's plan to become auditable?
    Dr. Carter. The Department is dedicated to having fully auditable 
financial statements by 2017, the deadline established by Congress. On 
behalf of the Secretary of Defense, the Under Secretary of Defense 
(Comptroller)/Chief Financial Officer (USD(C)/CFO) is reviewing DOD/
Component Financial Improvement and Audit Readiness plans with 
appropriate DOD leaders to determine what improvements can be made to 
speed progress. Upon completion of this review, the Secretary will 
issue formal direction to the Service Secretaries and other leaders on 
additional actions they must take to ensure sufficient and qualified 
resources are devoted to achieving this priority in alignment with the 
Department's strategy and methodology.

    58. Senator McCain. Dr. Carter, as CMO, you would also be 
responsible for ensuring that DOD fundamentally transforms how it does 
business--modernizes its business systems and restructures its 
processes. For years, GAO has identified these aspects of how DOD does 
business as exposing defense dollars to the risk of being waste, 
stolen, or otherwise abused. Why, based on your background and 
experience, do you think you are particularly well-suited and 
sufficiently qualified to address how DOD does business and how, if 
confirmed, would you address challenges in this area?
    Dr. Carter. As Under Secretary of Defense (Acquisition, Technology, 
and Logistics), I was deeply involved in the Department's operations 
over the last 2 years. As Defense Acquisition Executive and Defense 
Logistics Executive, I have fulfilled leadership roles similar in 
nature to the CMO. This experience, and particularly my experience in 
establishing the Better Buying Power initiative across the acquisition 
activities of the Department, makes me well suited and qualified to 
address how DOD does business. I look forward to overseeing the 
Department's responses to both the broad and specific challenges that 
come with operating such a large, complex and vitally important 
resource for the Nation. I would address the challenges of 
modernization of our business systems and processes with the attention 
and thoroughness appropriate to such a costly and complex undertaking, 
ensuring that our senior leaders are all carrying out their roles in 
creating an integrated, effective, and agile business environment, 
while remaining good stewards of the taxpayers' dollars.

    59. Senator McCain. Dr. Carter, do you think that there is merit to 
separating the CMO function from the position of Deputy Secretary of 
Defense? Please explain your answer.
    Dr. Carter. I believe the current joining of functions of the CMO 
and Deputy Secretary of Defense is appropriate. I would inform Congress 
if I determined that a separation of these duties was merited.

            ALTERNATIVE ENGINE FOR THE JOINT STRIKE FIGHTER

    60. Senator McCain. Dr. Carter, you have steadfastly supported a 
single-engine for the JSF, citing the significant upfront cost of a 
dual-source strategy and numerous analyses showing that, under the best 
of circumstances, there may never be a payback for carrying two engine 
suppliers. Given the enormity of possible spending cuts DOD is facing 
and the possibility that overall production numbers of the F-35 might 
be reduced, what is your assessment of the business case for two engine 
sources today?
    Dr. Carter. My position as well as the Department's position on the 
business case for the alternate engine remains unchanged: the costs to 
pursue a second engine are significant and immediate, while the 
benefits are speculative and would not be realized until many years 
later. As you allude to, the fiscal situation facing the Department 
amplified our concerns with the second engine program. The Department 
anticipates that many difficult situations will have to be made on 
major weapon systems, including the JSF program at large. DOD simply 
cannot afford to continue the second engine development activities with 
the many higher military priorities and the stringent budgets it faces.

    61. Senator McCain. Dr. Carter, how does the offer from the 
industry team producing the engine to cover the remaining costs of 
development impact your opinion?
    Dr. Carter. The industry team has not made an offer to the 
Department to cover the remaining costs of the development program. 
There was discussion of a ``proposal'' from them to self-fund the 
second engine development activities for some limited period. The 
details of this ``proposal'' are sketchy at best. On April 25, 2011, 
the Department initiated the contract termination process and all 
qualification activities for the second engine ceased. DOD can 
reasonably project that any effort to continue the engine effort in 
isolation from the Government is likely to require extensive 
integration and validation efforts at a later time. These activities 
would require both time and resources which would ultimately be paid by 
the Government.

    62. Senator McCain. Dr. Carter, based on what you currently know 
about it, why isn't this self-financing offer something we should 
embrace?
    Dr. Carter. The Department did not receive a proposal to self-
finance the development of the alternative engine. In the absence of a 
proposal, it is difficult to determine whether such an idea would be in 
the best interests of the Department. The Department anticipates that 
the government would bear costs even under a self-funding proposal. For 
example, if the contractor self-financed the effort in isolation from 
the government, there would likely be a significant cost to the 
Government to re-integrate the second engine at a later time. The 
contractor may also require access to government test assets and 
facilities and this would also come at a cost to the Government. In 
addition, the contractor could pass the self-funding costs back to the 
Government via increased overhead rates and production prices. Careful 
scrutiny of a submitted detailed proposal would be required before DOD 
could objectively assess whether a self-financing ``offer'' would be 
something it should embrace.

    63. Senator McCain. Dr. Carter, outgoing Deputy Secretary Lynn 
recently disagreed with the suggestion of a number of my colleagues 
that DOD should preserve all the equipment associated with development 
of the alternate engine so that the contractors could self-fund 
development. Do you share Secretary Lynn's position? Please explain.
    Dr. Carter. I do share Deputy Secretary Lynn's position that 
equipment purchased by DOD should be preserved as deemed necessary for 
use by DOD. A significant amount of the government equipment acquired 
under the F136 contract does, in fact, possess utility and value to the 
Department. For example, the F136 ground test engines have potential 
value to other DOD engine science and technology programs, such as the 
Adaptive Versatile Engine Technology program, and requests for F136 
hardware have already been received from DOD research labs. 
Additionally, common hardware procured under the F135 contract and 
provided to the F136 development program, is also useful to the F135 
program. Examples include the use of exhaust modules as development and 
flight test spares, and the use of the lift system controls hardware in 
software bench testing. The lift system common hardware (lift fan, 
driveshaft, exhaust module, and roll posts) can also be used by the 
F135 program. Preservation of any other equipment not found useful 
would come at additional expense to the Government, something the 
Department is not prepared to do.

             U.S. FORCE REALIGNMENTS IN THE PACIFIC REGION

    64. Senator McCain. Dr. Carter, we were recently briefed that the 
current cost estimate for the U.S. share of expenses of the planned 
relocation of 8,700 U.S. marines from Okinawa to Guam, is now over $17 
billion. That's $10 billion more than we estimated when we reaffirmed 
the agreement with the Government of Japan in 2009. I expect that the 
U.S. cost for construction of facilities will only rise as we include 
land acquisitions and improvements to the infrastructure of Guam. While 
I understand and support the need to maintain U.S. forces in the 
western Pacific, at what point does the movement of marines and their 
families to Guam become cost prohibitive?
    Dr. Carter. Our military forces in Japan are a central feature of 
our Asia-Pacific strategy, and the geostrategic location of Okinawa in 
East Asia is a critical component of this strategy. In order to ensure 
our continued use of facilities in Okinawa, we must not only address 
the impact of the U.S. Marine Corps Air Station Futenma on the 
surrounding communities, but we must also seek to reduce our overall 
footprint. The 2006 Realignment Roadmap attempts to accomplish these 
goals.
    In the context of reducing the U.S. presence on Okinawa, and 
consistent with our renewed emphasis on the global importance of the 
Asia-Pacific region, we seek a more geographically distributed, 
operationally resilient, and politically sustainable presence in the 
region. Guam must be part of that solution. As the westernmost reach of 
U.S. sovereign territory, Guam provides unconstrained access and 
operational flexibility for our forces. The Department is committed to 
establishing an operational U.S. Marine Corps presence on Guam.
    In response to numerous comments from Members of Congress, local 
political leaders, and citizens groups, the Department is carefully re-
examining its options for Guam and is focused on developing an 
efficient, cost-effective laydown and master plan. I recognize the 
fiscal constraints we face in developing and implementing a force 
posture consistent with our strategy.

    65. Senator McCain. Dr. Carter, in your opinion, given the 
direction to reduce defense spending, is DOD studying less costly 
alternatives that would achieve the same strategic benefits?
    Dr. Carter. In response to numerous comments from Members of 
Congress, local political leaders, and citizens groups, the Department 
is carefully reexamining our options for Guam and are focused on 
developing an efficient, cost-effective laydown and master plan. I 
recognize the fiscal constraints we face in developing and implementing 
a force posture consistent with our strategy for the region.

    66. Senator McCain. Dr. Carter, what is you assessment of the 
status of the relocation of Marine Corps Air Station Futenma to Camp 
Schwab on Okinawa, a Japanese funded initiative which is supposed to be 
contingent on the move of marines from Okinawa to Guam?
    Dr. Carter. The Department conveyed to the Government of Japan the 
urgency of taking the necessary steps to get construction on the 
airfield underway, starting with the approval of the landfill permit. 
In my judgment, the Japanese remain committed to the Realignment 
Roadmap.
    At the ``2+2'' meeting in June of this year, Secretary of Defense 
Gates and Secretary of State Clinton endorsed a plan for the 
configuration of the runway, while acknowledging that the FRF would not 
be completed by the Realignment Roadmap target date of 2014.
    Construction on the ground at Camp Schwab, which will enable the 
airfield construction to move forward more rapidly, has been underway 
for the past few years.

    67. Senator McCain. Dr. Carter, when do you believe we will see 
tangible progress on the relocation of Futenma?
    Dr. Carter. ``Tangible progress'' on the Futenma Replacement 
Facility (FRF) should be understood within the context of the complete 
language in the Roadmap concerning the linkage between actions on 
Okinawa and Guam: ``the III MEF relocation from Okinawa to Guam is 
dependent on: (1) tangible progress toward completion of the FRF and 
(2) Japan's financial contributions to fund development of required 
facilities and infrastructure on Guam.''
    In testimony before the House Armed Services Committee on February 
15, 2011, Secretary of Defense Gates reiterated this formula, and 
further indicated his expectation that a decision on runway 
configuration would allow us to continue implementing the agreement. At 
the ``2+2'' meeting on June 21, 2011, Secretary of Defense Gates and 
Secretary of State Clinton endorsed a plan for the configuration of the 
runway, while acknowledging that the FRF would not be completed by the 
Realignment Roadmap target date of 2014.
    Tangible progress should not be thought of as single, specific 
event, but rather as a series of steps of roughly parallel Japanese and 
U.S. actions. Our understanding with the Government of Japan is that as 
progress on the FRF is achieved, the United States will take associated 
steps to move forward on Guam. I would see examples of noteworthy 
progress on the FRF being the decision on the runway configuration, 
approval of the environmental impact assessment, issuance of the 
landfill permit, construction of the seawall, and progress on the 
landfill itself.

    68. Senator McCain. Dr. Carter, DOD recently awarded construction 
projects on Guam using funds provided by the Government of Japan, 
despite the lack of tangible progress on Futenma and despite concerns 
formally raised by this committee on the lack of a plan and cost 
estimate for the marines on Guam. Can you explain why the construction 
contract was awarded at this time in light of congressional concerns 
and unanswered questions?
    Dr. Carter. I appreciate the committee's concern regarding the Guam 
military realignment. In determining whether to award the Japanese-
funded utilities and site improvements project, the Department 
seriously considered these concerns, as well as the interests of our 
partners in Japan and Guam, and the actions taken by the House. DOD 
deferred award of both the Apra Harbor Medical Clinic project and the 
option for utilities and site improvements at Finegayan. However, we 
elected to move forward with the utilities and site improvement work at 
Apra Harbor and Andersen Air Force Base (AFB), funded with Japanese 
fiscal year 2009 cash contributions, as these projects directly support 
previously awarded Military Construction (MILCON) projects and will be 
operationally beneficial. Congressional notification was completed in 
October 2010, and your staff was briefed at that time.
    The Government of Japan supported the decision to award the 
contract. With this first award of a Japanese-funded project, the 
United States is demonstrating its commitment to the Realignment 
Roadmap in accordance with the joint statement at the time of the June 
2011 ``2+2'' meeting.
    Tangible progress on the Futenma Replacement Facility (FRF) should 
not be viewed as a single, specific event, but rather as a series of 
steps of roughly parallel Japanese and U.S. actions, as spelled out in 
our bilateral understandings on realignment. As the Government of Japan 
makes progress on the FRF, DOD will take associated steps to move 
forward on Guam.
    An essential point regarding the relationship between the Okinawa 
and Guam initiatives is that preparation on Guam will need to begin in 
advance of actual construction on the ground for the replacement 
facility at Camp Schwab. This will ensure that when Japan makes 
satisfactory progress on the FRF, suitable facilities will be available 
on Guam allowing the phased relocation of marines from Okinawa, 
sequenced in such a way as to maintain unit cohesion and operational 
readiness. The movement of marines to Guam, consistent with the 
agreement, depends on tangible progress towards the completion of the 
FRF at Camp Schwab.

    69. Senator McCain. Dr. Carter, if you are confirmed as Deputy 
Secretary of Defense, how would you approach this issue?
    Dr. Carter. I will continue to consult closely with all relevant 
committees of Congress, allies, and partners in implementing the 
necessary force posture adjustments, consistent with the Department's 
regional strategy.

                          MILITARY PAY REFORM

    70. Senator McCain. Dr. Carter, the Joint Select Committee on 
Deficit Reduction (JSCDR) has to make some decisions in the weeks ahead 
about future defense costs. The current 20-year military retirement 
system has come under scrutiny, particularly as the JSCDR begins its 
work and the requirement for deep cuts in defense costs looms. What is 
your sense of DOD's current position regarding retention of the current 
20-year retirement system?
    Dr. Carter. The 20-year retirement system has been a part of the 
military compensation and culture for decades; the entire force profile 
and promotion system is built around that structure. Revising or 
eliminating such a system must be approached deliberately and with a 
great amount of circumspection. The Department's leadership must be 
confident that any change in retirement will not have a significantly 
deleterious effect on the force or on individuals in the force, but 
will be supportive of recruitment and retention and will fairly 
compensate our servicemembers.

    71. Senator McCain. Dr. Carter, do you see the need for change? 
Please explain.
    Dr. Carter. Overall, I see the need for a close review and analysis 
of the military retirement package. The review must consider the impact 
on recruiting and retention, the welfare of individual members, and 
judicious use of taxpayer dollars and the defense budget. Whether that 
review and analysis will support the case for change is undetermined at 
this point.

    72. Senator McCain. Dr. Carter, what would DOD's response be to a 
call for a recommendation regarding maintaining the current system or 
relying on a new system?
    Dr. Carter. As far as recommendations, the Department already had 
several such calls, from various sources, for both preservation and 
reformation of the military retirement system. At this point, DOD's 
response is that the impact on military accessions and retention and 
other impacts on the force structure must be carefully assessed. While 
the military retirement system, as with all other compensation and 
benefits, is a fair subject of review for effectiveness and efficiency, 
no changes to the current retirement system have been recommended or 
approved by the Department, and no changes will be made precipitously 
or without careful consideration of potential consequences for both the 
current and future force.

    73. Senator McCain. Dr. Carter, if confirmed, what would be your 
answer to a question from a currently serving military member about the 
future of the 20-year retirement system?
    Dr. Carter. The Department's leadership is extremely sensitive to 
ensure we do not break faith with our currently serving members, 
especially those who demonstrated an inclination to a full military 
career by serving past their initial obligation period. Any proposed 
change or changes to the current system will be evaluated carefully and 
consideration of those obligations will be of the highest priority.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                         CIVILIAN HIRING FREEZE

    74. Senator Inhofe. Dr. Carter, many small units in my State are 
being negatively affected by the civilian hiring freeze. They are not 
able to replace important positions in maintenance on our flight lines 
and depots, flight training, and other specialties. These cuts affect 
each unit's ability to accomplish their mission. In the last 5 years, 
blue collar and technical positions have flatlined. However, white 
collar professional and administrative positions have grown by 19 
percent. This statistic may be an indicator of an increasingly top-
heavy corps of DOD civilians, but reflects that at the worker-level, 
our DOD professionals continue to do more with less. What is the way 
forward for the civilian hiring freeze?
    Dr. Carter. As part of the Department's efficiency initiative, 
Secretary Gates directed DOD organizations to hold to fiscal year 2010 
civilian funding levels, with some exceptions, for the next 3 years. 
This should not be perceived as a civilian hiring freeze but rather the 
Department's commitment to challenge workload requirements and more 
appropriately size its workforce to meet the most pressing and critical 
priorities. In particular, Secretary Gates' efforts focused on reducing 
administrative functions associated with headquarters staff while 
realigning resources to war-fighting capability, force structure 
recapitalization, and unit readiness. Secretary Panetta and I are 
committed to ensuring that the Department possesses everything it needs 
to protect national security at a time of considerable fiscal challenge 
in our country. To do so, spending choices must be based on sound 
strategy and policy. While some DOD organizations may be implementing 
short-term hiring freezes, sometimes referred to as strategic pauses, 
there is no Department-wide hiring freeze or constraint on any specific 
aspect of the workforce. These strategic pauses give Commanders and 
managers an opportunity to assess their organizational structure, 
identify their most pressing and critical areas, and minimize the 
potential adverse impact on our dedicated civil service workforce. 
Mission capability and unit readiness are a key element of these 
assessments.

    75. Senator Inhofe. Dr. Carter, how will you ensure that DOD 
operations are not affected by the reductions in DOD civilians?
    Dr. Carter. Reductions in the Department's civilian workforce are 
being considered strategically and holistically (along with military 
end-strength, contracted services, and overall force structure). Any 
such reductions will be made in a manner that mitigates risk and 
minimizes impact on overall DOD operations, mission capability, 
operational readiness, and warfighter/family support. However, as 
Secretary Panetta and the Department's leadership have repeatedly 
stated, any further budget reductions beyond those in the current 
agreements, or constraints on hiring or retention of the Department's 
civilian workforce, would have an extremely adverse impact on our 
military's readiness and ability to execute the Nation's defense.

              COMMITTEE ON FEDERAL ACQUISITION RULE REFORM

    76. Senator Inhofe. Dr. Carter, despite well-founded attempts to 
improve our Federal Acquisition Rules (FARs) they remain complicated 
and outdated, leading to increased procurement times and costs. There 
are 1,680 policy documents and 91 laws affecting the FARs. There were 
30 new documents added in 2011 alone. DOD has developed alternative 
procedures, working groups, and organizations, such as Joint Improvised 
Explosive Device Defeat Organization (JIEDDO), that essentially bypass 
the current FARs, in order to rapidly field new weapons systems.
    The General Services Administration (GSA), NASA, DOD, and Office of 
Management and Budget (OMB) met in February to develop ``bold, new ways 
to improve the product quality and timeliness of the FAR process . . . 
[and call] for a tune-up of the FARs.'' FARs need more than a tune-up. 
The FAR Counsel, made up of the Administrator for Federal Procurement 
Policy, the Secretary of Defense, the Administrator of National 
Aeronautics and Space, and the Administrator of General Services, are 
too busy to focus on rewriting and overhauling FARs. Do you believe the 
FARs have played a role in increasing the procurement costs and 
timelines of our weapon systems?
    Dr. Carter. On the whole, I do not believe that the Federal 
Acquisition Regulation (FAR) increases procurement costs and timelines 
of our weapon systems. I also note that we continuously update the FAR 
to reflect current statutes, executive orders, and acquisition 
policies. DOD supplements the FAR in the Defense FAR Supplement (DFARS) 
to reflect Department-unique laws and policies, and continuously 
updates the DFARS to ensure currency. The FAR and DFARS are codified in 
the Code of Federal Regulations, and revisions/updates to the FAR and 
DFARS are processed in accordance with the requirements of the Office 
of Federal Procurement Policy Act. These requirements include public 
comment periods that allow for all interested parties to provide 
comments and recommendations.
    As part of our Better Buying Power Initiative, we are looking very 
carefully at all processes and regulations that govern the operation of 
the acquisition system. My intent is to eliminate all that fail to add 
value and, consequently, to avoid the cost and unnecessary 
administrative burden they impose on our acquisitions.
    Separately, as a matter of clarification, the Joint Improvised 
Explosive Device Defeat Organization (JIEDDO) does not bypass the FAR. 
The JIEDDO leads, advocates, and coordinates all DOD actions in support 
of the combatant commanders' and their respective Joint Task Forces' 
efforts to defeat improvised explosive devices (IED) as weapons of 
strategic influence. It leverages the experience and expertise of 
warfighters across the Military Services, enhances network attack 
focus, increases procurement of device-defeat tools, and builds a 
robust set of IED-specific force training operations. However, it does 
not use procurement processes outside the FAR and DFARS.
    Finally, the Department established the Joint Rapid Acquisition 
Cell (JRAC) to facilitate an expeditious response to validated urgent 
Warfighter needs. The JRAC provides help in pushing urgent requirements 
through processes that are optimized for speed but compliant with the 
FAR and DFARS.

    77. Senator Inhofe. Dr. Carter, what do you think of setting up a 
1-year commission to overhaul and rewrite FARs, a commission with 
members selected by Congress and organizations on the FAR Counsel 
responsible to reporting back to Congress their recommendations on 
streamlining and simplifying the FARs while ensuring proper oversight?
    Dr. Carter. I do not believe that we need such a commission. We 
continuously update the FAR and the DOD FAR Supplement (DFARS) to 
ensure implementation of current statutes, executive orders, and 
acquisition policies, as well as the deletion of obsolete text. As the 
Department takes these actions, one of the principles is to simplify 
and streamline the text to the maximum extent possible.
    The FAR does not increase the lead times or costs of procurements. 
The existing process ensures the currency of the FAR and DFARS, and a 
1-year commission to overhaul and rewrite the FAR is not necessary and 
not an effective use of resources.

                                PALADIN

    78. Senator Inhofe. Dr. Carter, I disagreed with the decision to 
terminate the Future Combat Systems (FCS) because our Army is in 
desperate need of modernization and our soldiers deserve better than 
50-year-old combat vehicles with 7 layers of new paint. The Paladin 
Integrated Management (PIM) is now the Army's lead fire support 
modernization effort in the wake of non-line-of-sight cannon (NLOS-C) 
cancellation. PIM will enhance the operational capability of the 46-
year-old Paladin until we are able to acquire the next generation self-
propelled howitzer. PIM is currently funded and I continue to work with 
the Army to accelerate fielding. Can you explain the significance of 
the PIM program and the importance of this program moving forward?
    Dr. Carter. The PIM program consists of a process that rebuilds 
vehicle platforms to original factory standards and applies 
modifications to deliver ``like new'' platforms, while incorporating 
improved subsystems and components to address obsolescence and 
supportability issues. The objectives are to ensure supportability/
maintainability/interoperability by leveraging Heavy Brigade Combat 
Team (HBCT) fleet commonality for key components (engine, transmission, 
final drives, and suspension); replacing obsolete components; reducing 
logistics footprints; reducing operations and support costs; 
maintaining performance; leveraging Bradley common components; 
addressing crew survivability issues; and performing technology 
insertion.
    PIM will address increased force protection and survivability 
requirements. The PIM also fills existing capability gaps in the self-
propelled artillery portfolio brought about by an aging fleet and the 
termination of prior modernization efforts. PIM provides growth 
potential in Space, Weight and Power (SWaP) and capacity for network 
expansion to accommodate future howitzer related needs, such as force 
protection packages. The Department is scheduled to award a 
Comprehensive Contract Modification by the end of 2011 and maintain 
Milestone C in June 2013.

                                  F-35

    79. Senator Inhofe. Dr. Carter, DOD recently sent a report to 
Congress on the Chinese military, warning that: `` . . . China's 
military has benefited from robust investment in modern hardware and 
technology. Many modern systems have reached maturity and others will 
become operational in the next few years.'' One of those investments 
includes their new J-20 stealth fighter, which is actively undergoing 
testing. Russia is also unveiling its fifth generation fighter jet--the 
T-50--and is preparing to present it to the world market.
    What impact does the development and potential export of Chinese 
and Russian fifth generation fighters, proliferation the new surface-
to-air missile systems, and improvements in missiles and sensor 
technology have on our legacy aircraft?
    Dr. Carter. Modern fighter aircraft, surface to air missiles, and 
sensors constitute a part of the growing threat posed to U.S. military 
forces by a wide array of systems. Our most capable adversaries are 
also deploying ballistic and cruise missiles, modern surface ships and 
submarines, mines, anti-satellite weapons, cyber threats, electronic 
warfare systems, and other weapons that enable anti-access and area 
denial (A2/AD) strategies.
    DOD is assessing these threats and instituted a number of 
initiatives to counter them. These run the gamut from developing new 
platforms (e.g., the F-35 and a new penetrating bomber), to fielding 
improved weapons and munitions (e.g., an extended range air-to surface 
standoff monition and a beyond-visual-range infrared air-to-air 
missile), to advanced electronic countermeasures, to new concepts for 
integrating and employing joint forces.
    In this dynamic threat environment, legacy aircraft operate at 
higher risk compared to fifth-generation aircraft but can conduct a 
range of necessary missions given adequate investments in upgraded 
avionics, sensors, and weapons. Within the context of these and other 
developments, U.S. forces will continue to operate a mixed fleet of 
mutually supporting fifth generation and legacy aircraft, investing in 
a more modern force over time.

    80. Senator Inhofe. Dr. Carter, is 2,443 the validated number of F-
35s required by our Air Force, Navy, and Marine Corps? If so, is DOD 
committed to fielding the required fleet of 2,443 F-35s for all three 
Services and delivering the airplane to our international partners and 
allies as quickly and affordably as possible?
    Dr. Carter. The current program of record is 2,443 F-35s for the 
three U.S. Military Services. The Department is committed to fielding 
the F-35 as efficiently and affordably as possible to meet the Services 
and DOD requirements. Our international partners determine their own 
requirements, based on how many F-35 aircraft they need and when they 
need to purchase those aircraft. The partners negotiate directly with 
the contractor based on their requirements timeline.

                           TACTICAL DOMINANCE

    81. Senator Inhofe. Dr. Carter, as a proportion of total combat 
deaths, infantry has increased from 71 percent in World War II to 81 
percent in wars fought since. Our acquisitions system is optimized for 
procuring large systems instead of extending our tactical dominance to 
the tactical edge. We need to meet the challenge, however, to make our 
small units tactically dominant. I echo General Dempsey's call to make 
the infantry squad more lethal. He said, ``We don't want to send a 
soldier into harm's way who doesn't overmatch his enemies.'' I am 
concerned that we may lose budget-share for our organizations that 
support the individual rifleman--a large portion of the program 
executive office (PEO) soldier budget comes from overseas contingency 
operations (OCO) which is dwindling even though we are still heavily 
engaged in Afghanistan. Is DOD looking at warfare from the ground up?
    Dr. Carter. Despite anticipated changes in overseas contingency 
operations and fiscal challenges, the Department is committed to 
providing small units with the equipment and training needed to 
maintain tactical dominance. Although our warfighters are better 
trained, led, and equipped, and more capable than ever, the Department 
must continuously evolve to maintain dominance over changing enemies 
and threats.

    82. Senator Inhofe. Dr. Carter, what are some of the ways DOD is 
working to improve and lighten the load on our ground forces?
    Dr. Carter. The Department intends to continue pursuit of lighter 
body armor; lighter and more capable individual and crew-served 
weapons; and smaller, lighter, and more efficient batteries in order to 
reduce the burden on our ground forces.

    83. Senator Inhofe. Dr. Carter, how will you ensure our acquisition 
system can better equip our soldiers and marines at the tactical edge?
    Dr. Carter. It is important for the Department to continue using 
all available acquisition means to lighten the rifleman's load and 
increase survivability and lethality. In addition to employing a 
deliberate acquisition approach to mature new technologies and 
integrate them into military equipment, the Department is responding to 
urgent warfighting needs by fielding mature capabilities as rapidly as 
possible, using all available rapid acquisition authorities, and 
working to better formalize and enhance the rapid acquisition process.

                       ARMY VEHICLE MODERNIZATION

    84. Senator Inhofe. Dr. Carter, the Army procured its current fleet 
of combat vehicles 30 to 60 years ago and they are aging at an 
increasingly rapid rate. General Casey and General Chiarelli have 
stated they are burning up equipment as soon as they can procure it. 
Yet, Army procurement funding decreased $31 billion from fiscal year 
2008 to fiscal year 2010. In a June 16, 2009, Senate Armed Services 
Committee Airland Subcommittee hearing, LTG Thompson (Army Chief 
Acquisition Officer) said, ``The Army has tried 5 times in the past 20 
years to modernize its fighting vehicles . . . [I]t has kept its tanks 
and Bradleys operationally relevant [but] at some point in time the 
Army has to modernize those 16,000 fighting vehicles for the future or 
we are going to put soldiers in harm's way.'' The Army is moving 
forward with plans on the next combat ground vehicle but the only 
vehicle being discussed is the infantry vehicle. What is the overall 
plan for Army vehicle modernization?
    Dr. Carter. The Army has a comprehensive Combat Vehicle 
Modernization strategy that addresses key capability shortfalls for the 
entire combat vehicle fleet (Abrams tank, Bradley Fighting Vehicle, 
Stryker, and M113 family). The strategy is based on three parallel and 
complementary efforts: transform, replace, and improve. The highest 
priority effort is transforming the capability of the Heavy Brigade 
Combat Team by acquiring the Ground Combat Vehicle Infantry Fighting 
Vehicle. The second priority is replacing the M113 Family of Vehicles 
with an Armored-Multi Purpose Vehicle (AMPV). Lastly, the Army will 
improve the Abrams tank, Bradley Cavalry, Fire Support, and Engineer 
Vehicles, and the Stryker to increase protection, ensure required 
mobility, and allow integration of the emerging network. This strategy 
ensures the Army's entire fleet of combat vehicles will be able to 
operate side-by-side across formations with common situational 
awareness and required levels of protection, mobility, and lethality.

    85. Senator Inhofe. Dr. Carter, what vehicles will be included as 
part of the Army's next combat ground vehicle?
    Dr. Carter. The Army is pursuing an incremental approach to 
procuring new Ground Combat Vehicle capabilities. The Army will first 
replace the Bradley Infantry Fighting Vehicle with a new Ground Combat 
Vehicle (GCV). The GCV acquisition strategy implements innovative 
measures designed to keep the program on schedule and on budget, to 
include fixed-price incentive fee contracts in the 2-year Technology 
Development phase, an increased emphasis on mature technologies and 
reliance on competition throughout the program as an incentive. First, 
contractors will work collaboratively with the Army to develop 
competitive, best-value engineering designs to meet critical Army 
needs. Concurrently, the Army will initiate a dynamic update to its GCV 
Infantry Fighting Vehicle analysis of alternatives and conduct separate 
technical and operational assessments of existing non-developmental 
vehicles. Results from this assessment, along with contractors design 
efforts, will inform GCV requirements to support the next program 
milestone and facilitate a full and open competition for the next phase 
of the GCV program. Further increments of the vehicle are anticipated 
in the future, as additional capabilities are required.
    In terms of the overall combat vehicle portfolio, the Army is also 
examining potential solutions for the Armored Multi-Platform Vehicle to 
replace the M113. The Army will conduct analysis to determine whether 
modified platforms already in the inventory or non-developmental 
vehicles provide the best capability.

    86. Senator Inhofe. Dr. Carter, will we be procuring one type of 
vehicle at time or multiple platforms?
    Dr. Carter. To ensure interoperability of the Army's mounted force, 
the Department will invest in multiple platforms simultaneously, 
through a combination of new procurement and vehicle upgrade programs.

    87. Senator Inhofe. Dr. Carter, when do you expect increased 
budgets for procuring these vehicles?
    Dr. Carter. The Ground Combat Vehicle (GCV) is funded in PB12 and 
the funding extends throughout the FYDP. In addition to the GCV, the 
Army's Combat Vehicle Modernization (CVM) strategy has several other 
components, to include upgrading Abrams tanks and non-IFV Bradleys. 
Upon congressional approval of a new start, the Army intends to 
initiate the Armored Multi-Purpose Vehicle (AMPV) program. The AMPV 
will replace the M113 Family of Vehicles (FOV) with a platform that is 
more survivable and mobile and can accomplish missions across the full 
spectrum of conflict.
    The Army's PB12 request includes RDT&E funding for all three CVM 
components. Procurement funding for the AMPV is planned to start in 
fiscal year 2014 with the first unit equipped planned for fiscal year 
2017. Abrams and non-IFV Bradley upgrades are also funded in PB12 and 
the funding extends throughout the FYDP.
    The Army believes that collectively, all components of the Combat 
Vehicle Modernization Strategy are within the Army's projected funding 
resources.

                                  IRAQ

    88. Senator Inhofe. Dr. Carter, there are approximately 46,000 U.S. 
troops in Iraq. Iraqi Prime Minister Maliki and other Iraqi leaders 
have indicated they would like a U.S. presence beyond 2011 focused on 
training their forces, intelligence, and protecting their air space and 
borders. Massoud Barzani, President of Iraqi Kurdistan, said if 
American troops leave, the sectarian violence that plagued Iraq after 
U.S.-led operations began might erupt anew and called on the Iraqi 
Government to sign an agreement with the Americans to keep forces in 
the country.
    The Obama administration is finalizing several options that could 
leave as little as 3,000 to 4,000 U.S. forces in Iraq beyond that date, 
but no decision has been made by Iraq or the United States. This number 
is significantly lower than the 14,000 to 18,000 recently presented by 
General Lloyd Austin, Commanding General, U.S. Forces-Iraq. I believe 
leaving 3,000-4,000 U.S. forces in Iraq increases the risk to those 
forces and jeopardizes the successes achieved made by the Iraqi people 
and the coalition of nations who help liberate them. What is the U.S. 
Government's strategic plan in Iraq and how does a U.S. force presence 
contribute to that strategy?
    Dr. Carter. Strategically, a long-term partnership with the Iraqi 
Government and people is in the United States' interest, and a 
relationship with the Iraqi Security Forces (ISF) will be an important 
part of that partnership. The Department is currently in negotiations 
with the Iraqi Government about the nature of that relationship. The 
negotiations to date focused on possible mission sets to support the 
ISF in areas that Iraqi commanders have identified as shortfalls, such 
as: logistics, air and maritime security training, combined arms 
training for Iraq's external defense, and intelligence fusion for Iraqi 
counterterrorism operations.
    Iraq no longer needs large numbers of U.S. forces to maintain 
internal stability, and the commanders in the field assess that the ISF 
can handle counter-insurgency operations. The ISF has the lead for 
security, and levels of violence remain dramatically reduced from where 
they were in 2006 and 2007.
    At this point, no decisions have been made about any force levels 
in Iraq after 2011. The United States will continue to adhere to the 
2008 U.S.-Iraq Security Agreement.

    89. Senator Inhofe. Dr. Carter, how does a U.S. force presence in 
Iraq impact the security of the region?
    Dr. Carter. Given Iraq's importance and strategic location, it is 
profoundly in the U.S. national interest that Iraq emerge as a 
strategic partner to the United States; sovereign, stable and self-
reliant; and a positive force for moderation and stability.
    We seek to achieve that end in part through the development of a 
continuing security partnership similar to those the United States has 
with other countries in the region. Such a partnership, which would 
center around a training mission, would be defined based on Iraqi 
desires, available U.S. and Iraqi resources, and competing global 
requirements. Training the Iraqi Security Forces would increase Iraq's 
capacity for both internal and external defense, and would build toward 
our shared objective of a strong strategic partnership that contributes 
to regional security.
    That said, no final decisions have been made--nor have we reached 
an agreement with the Government of Iraq--about a post-2011 U.S. 
presence in Iraq.

    90. Senator Inhofe. Dr. Carter, what are the courses of action 
currently being looked at in Iraq, what are the risks associated with 
different courses with regard to troop levels, and what missions can be 
accomplished with those force levels?
    Dr. Carter. We are currently in negotiations with the Iraqi 
Government about the nature and scope of a potential future 
relationship. Any future security relationship would be fundamentally 
different from the one that we have had since 2003. The United States 
wants a normal, productive relationship with Iraq going forward--a 
partnership like we have with other countries in the region and around 
the world.
    For some time, the Department had had informal consultations with 
our Iraqi partners, including senior Iraqi Security Forces (ISF) 
officials, regarding ISF gaps and areas in which the ISF might request 
training post-2011. These areas include combined arms training, 
necessary for Iraq's external defense; intelligence fusion (essential 
for a counterterrorism capability); air and maritime security training; 
and logistics.
    The negotiations to date have focused on the possible mission sets 
to support the ISF in these and other areas. Any post-2011 U.S. forces 
presence upon which the United States and Iraq might ultimately agree 
would flow from the requirements to support training and related 
mission sets.
    Again, we have made no final decisions--nor reached any agreement 
with the Iraqis--about a post-2011 U.S. forces presence in Iraq.

                              AFGHANISTAN

    91. Senator Inhofe. Dr. Carter, Afghanistan remains as one of the 
epicenters of violent extremism. Progress has been made but it is 
fragile and reversible. The deadlines of July 2011, summer of 2012, and 
December 2014 continue to have a devastating effect on operations and 
has sent the wrong message to our coalition partners, the people of 
Afghanistan, and the Taliban. Enemy activity in Afghanistan 
historically intensifies during the summer and this summer prove no 
different as evidenced by the bombing in Wardak Province on Sunday and 
the attacks in Kabul today. However, the Obama administration began 
drawing down U.S. forces beginning this July when almost 1,000 soldiers 
from the 45th Infantry Brigade Combat Team from Oklahoma were rerouted 
at the 11th hour to Kuwait. This strategy of not replacing units as 
they rotate out of Afghanistan is disruptive and increases risk.
    August was the deadliest month for U.S. forces since the war in 
Afghanistan began in 2001 with a total of 66 killed, 30 in a Chinook 
helicopter crash on August 6. Since July 29, 2011, Oklahoma soldiers 
have been killed in Afghanistan--they are doing a great job, are well-
trained, but they are fighting it out every day executing the mission 
we have given them. President Obama has ordered the withdrawal of 
10,000 U.S. forces this year and another 23,000 by the summer of 2012, 
leaving about 68,000 forces on the ground. What rationale drove the 
drawdown at the height of the fighting season?
    Dr. Carter. The ``surge'' of forces ordered by President Obama in 
2009 was never intended to be open-ended, and has always been connected 
to the beginning of the transition process, which began in 2011. 
Campaign progress allowed the Department to begin recovering ``surge 
forces,'' marking an important milestone toward the completion of the 
transition of lead security responsibility to the ANSFs by the end of 
2014. Further, decisions over the pace and timing of the drawdown, 
within the designated milestones, were delegated to Commander, U.S. 
Forces Afghanistan/International Security Assistance Force (USFOR-A/
ISAF). DOD is carefully monitoring campaign progress, and will ensure 
that decisions about force strength support the strategy.

    92. Senator Inhofe. Dr. Carter, Ambassador Crocker said earlier 
this month that the United States must demonstrate strategic presence 
to win this long war in Afghanistan. Do you believe setting withdrawal 
dates of July 2012 and December 2014 demonstrates strategic patience 
and shows U.S. long-term commitment?
    Dr. Carter. The beginning of the recovery of the surge forces and 
the plan for completing transition of lead responsibility for security 
throughout the country to Afghan forces by the end of 2014, combined 
with the strategic partnership the United States is negotiating with 
the Afghan Government, show strategic patience and long-term 
commitment. These dates are achievable and consistent with the Afghans' 
own desire and efforts to increase their responsibility and leadership 
for the security of their country.

    93. Senator Inhofe. Dr. Carter, do you believe that a stable 
Afghanistan will help prevent future attacks like that of September 11, 
2001, on this country?
    Dr. Carter. Yes. President Obama's strategy--as laid out in his 
West Point address on December 1, 2009--focuses on our core goal, which 
is to disrupt, dismantle, and defeat al Qaeda and to prevent its 
capacity to threaten the United States and our allies and partners in 
the future.
    To accomplish this, the Department is pursuing three objectives 
that will secure and stabilize the country: deny al Qaeda a safe haven, 
reverse the Taliban's momentum, and strengthen the capacity of 
Afghanistan's security forces and government so that they can take lead 
responsibility for Afghanistan's future.
    DOD made substantial progress on these objectives and have exceeded 
our expectations on the core goal of defeating al Qaeda, killing 20 of 
its top 30 leaders, including Osama bin Laden. The United States and 
its allies have broken the Taliban's momentum in their heartland in 
Kandahar and Helmand. We have also trained more than 100,000 new ANSF 
personnel, who are now in the lead for security responsibilities in 
seven areas of the country, with more to follow this fall.
    This undeniable progress is important to American security because 
it helps foster an Afghanistan that is stable and secure-a country in 
which extremists will not find a safe haven or a platform for launching 
attacks on the United States and our allies and partners.

                            WEAPONS BOYCOTTS

    94. Senator Inhofe. Dr. Carter, European activists, including 
European parliamentarians, are pressuring European banks and funds to 
divest themselves of millions of dollars in investments in U.S. 
companies that produce landmines, cluster munitions, and nuclear 
weapons. Such actions harm the U.S. defense industrial base and also 
impede the military strategy of our Armed Forces and allies. The 
efforts of these groups are occurring outside the legitimate 
international dialogue about these important weapons systems, the 
United Nations' (UN) Convention on Cluster Weapons.
    In fact, efforts by international activists to disrupt U.S. 
munitions industries are misguided. Modern cluster munitions like the 
CBU-97 are more properly termed sensor fused weapons because they use 
sensors to increase their lethality against legitimate targets while 
protecting civilians against unexploded munitions and indiscriminate 
effects.
    Moreover, as DOS says, sensor-fused weapons, cluster munitions, and 
nuclear weapons are important tools in the U.S. national defense 
strategy that ensures our freedom and protects the lives of our 
soldiers. ``Their elimination from U.S. stockpiles would put the lives 
of its soldiers and those of its coalition partners at risk,'' DOS 
writes.
    There have been proposals to register and sanction foreign entities 
that seek to disrupt the U.S. defense industry. Such foreign entities, 
private and public, hold important defense suppliers at risk and 
endanger the U.S. defense industrial base, an important part of our 
Nation's military power. Do these foreign boycotts pose a material risk 
to our national defense?
    Dr. Carter. Given the interdependence of global commerce, I share 
the concern that national security and economic security face new 
risks. Foreign laws, policies, and international agreements, to which 
the United States is not a party, may impact our industrial base and 
thus affect our national defense.

    95. Senator Inhofe. Dr. Carter, what actions is DOD taking to 
ensure that we are able to continue to be able to use these legitimate 
weapons systems?
    Dr. Carter. The Department established a policy in 2008 that 
restricts use of cluster munitions after 2018 to those that have a 
submunition failure rate of not more than 1 percent, thereby preserving 
the ability to employ an important military capability while addressing 
humanitarian concerns associated with cluster munition use. The 
Department continues to support negotiations within the United Nations 
Convention on Certain Conventional Weapons framework on a cluster 
munitions protocol that will protect U.S. national security interests.

    96. Senator Inhofe. Dr. Carter, does DOD currently have the 
authorities necessary to protect our defense industrial base from 
weapons boycotts?
    Dr. Carter. The influence of activists and foreign governments on 
the U.S. defense industrial base is a complex dynamic. Protecting the 
U.S. defense industrial base and national security interests will 
require the Department to collaborate effectively with other executive 
branch agencies and Congress. We continue to work to understand and 
communicate the risks to the industrial base and work closely with 
other nations to preserve domestic industrial capabilities.

                         TRAUMATIC BRAIN INJURY

    97. Senator Inhofe. Dr. Carter, traumatic brain injury (TBI) 
continues to be one of the most prevalent wounds from operations in 
Iraq and Afghanistan. The ability to diagnose and treat TBI continues 
to be problematic despite the priority Congress and the Army have given 
to it. I remain concerned that we are not adequately screening our 
soldiers when they return. Once diagnosed with TBI, we need to be able 
to treat our wounded warriors and ensure that treatment is continued as 
long as needed to include transition to the Department of Veterans 
Affairs (VA) care. Various alternative treatments for TBI may have 
promise and are used in the private sector but few of these treatments 
have been approved for use on Army soldiers. In a report by National 
Public Radio, General Chiarelli expressed frustration about the pace of 
the vetting of these treatments. What frictions are delaying the 
vetting of alternative treatments?
    Dr. Carter. DOD has enacted TBI screening programs by establishing 
policies that mandate a medical evaluation after a servicemember is 
exposed to a potentially concussive event and post-deployment health 
assessments. Alternative treatment studies must be developed in 
accordance with the highest standards of scientific research and 
analysis. Each discovery leads to new questions or problems to be 
solved such as co-occurrence with disorders such as post-traumatic 
stress disorder. Well-considered research designs paired with 
streamlined research policies allow military supported research to 
answer critical questions and make valuable contributions to the health 
and welfare of our servicemembers and to the country. DOD is looked to 
as the leader in neurotrauma research, and the DOD neurotrauma 
portfolio complements similar areas of research funded through the 
National Institutes of Health and Department of Veterans Affairs. As 
the many investments in TBI and psychological health research begin to 
come to fruition, the collective understanding of these health concerns 
will improve, leading to more effective screening techniques and 
treatment strategies.

    98. Senator Inhofe. Dr. Carter, what can we do to speed up the 
process of the vetting better ways of diagnosing and treating TBI?
    Dr. Carter. To address this process of vetting better ways of 
diagnosis and treatment, we have put into place a method for a 
comprehensive review of a large portfolio of over 400 studies on TBI. 
DOD used a series of In Process Reviews (IPRs) to examine individual 
studies in specific subsections of the portfolio. In these IPRs, 
individual researchers are invited to present their ongoing work to 
panels of individuals from DOD, the Department of Veterans Affairs 
(VA), and the National Institutes of Health (NIH). This presents 
opportunities for the government to share information across agencies, 
to mitigate any potential redundancies, to leverage overlaps, and to 
remain informed of study progress and/or delays. As some of these 
individuals are clinicians, the IPRs help facilitate rapid translation 
of emerging research data into improved clinical care. The IPR process 
also presents investigators with opportunities to ask questions of the 
government, to share data or lessons-learned, and to identify 
collaborators. For example, just this year, DOD reviewed the current 
status on studies that address neuroimaging, non-invasive diagnostics 
in mild TBI, blast brain research and biomarker findings, cognitive 
rehabilitation and biomechanics after injury. This review process 
allows the Department to quickly assess what strategies work and just 
as important, what strategies do not work. The size of the entire DOD 
research portfolio on TBI cannot be overstated. The process for vetting 
research findings to identify and field safe and effective clinical 
care has proven to be the most efficient methodology to date.
    To further speed up the process of vetting better ways of 
diagnosing and treating TBI, researchers need access to emerging data 
from studies. To help facilitate direct comparison among studies, the 
U.S. Army Medical Research and Materiel Command and NIH are developing 
a Federal Interagency Traumatic Brain Injury Research (FITBIR) database 
to store, integrate and share datasets from numerous small and large 
studies so that researchers can collaborate on future research. The 
FITBIR database will allow for comparison across research studies based 
on a common set of data elements, thereby advancing our understanding 
of research outcomes more quickly, and lead to more rapid validation 
and adoption of best practices, to include effective diagnostic 
modalities and treatment alternatives.\1\
---------------------------------------------------------------------------
    \1\ Thurmond, V. A., Hicks, R., Gleason, T., Miller, A. C., 
Szuflita, N., Orman, J., et al. (2010). Advancing integrated research 
in psychological health and traumatic brain injury: common data 
elements. Arch Phys Med Rehabil, 91(11), 1633-1636.

    99. Senator Inhofe. Dr. Carter, what types of equipment solutions 
are being developed, procured, and fielded to help prevent, measure, 
and identify TBI?
    Dr. Carter. DOD TBI research portfolio is comprised of more than 
400 studies investigating numerous questions across the full spectrum 
of TBI prevention, screening, diagnosis, treatment, and recovery. Some 
of these studies have led to the development or refinement of new blast 
wave sensors and accelerometers. Different versions of sensors are 
currently being fielded with deploying units as part of new helmet 
designs. Characterizing the effects of blast waves with different 
parameters on the human body is a very complicated endeavor, and is a 
high priority in many areas of the DOD research portfolio, not just in 
the TBI portion. A wide variety of approaches are being taken 
simultaneously to address these questions, including computational 
modeling, improved animal models, advanced physics, and even 
unprecedented integration of operational and field epidemiologic data.
    Other areas of major investment include of non-invasive, field 
deployable mild TBI (mTBI) diagnostics, and neuroimaging. Currently, 
mTBI, by definition, is not visible using conventional imaging 
technologies, but data from ongoing studies is beginning to reveal 
improved ways of identifying, measuring, and describing specific brain 
changes associated with TBI. Research which includes Diffusion Tensor 
Imaging (DTI), a neuroimaging modality, is starting to show promising--
but still very early--results for detecting mTBI. In addition, other 
technological advancements are being fielded to include EYE-TRAC (Eye-
Tracking Rapid Attention Computation) that may help to evaluate 
attention and concentration problems after mTBI. Quantitative EEG 
(Electroencephalography) is also being fielded as an objective 
diagnostic device that may help identify mild TBI on the battlefield.

                 SALE OF MI-17S TO IRAQ AND AFGHANISTAN

    100. Senator Inhofe. Dr. Carter, DOD is spending billions to 
rebuild the helicopter fleets of Iraq and Afghanistan, by using Russian 
helicopters. The rationale is that Iraq and Afghan pilots, along with 
maintainers are used to operating Russian hardware. This ignores the 
fact that we are not equipping the same personnel that flew and 
maintained the old aircraft. We are training new pilots starting in 
small training aircraft. The program misses an opportunity to build 
ongoing relationships with these two countries. Iraq and Afghanistan 
will have to deal with Russia, not the United States, to supply and fix 
their aircraft for decades to come. We are also missing an opportunity 
to spend tax dollars at home. The money to buy the Russian helicopters 
is spent at the Russian defense export agency, and the money to 
refurbish and fix the Russian helicopters is paid to Russia-certified 
Russian airframe and propulsion mechanics. What is the rationale that 
DOD is using to justify buying Russian-made and maintained helicopters 
for our Iraq and Afghan allies?
    Dr. Carter. The United States provides assistance to our partner 
nations as a critical enabler in building an enduring capability for 
them to operate and maintain rotary wing fleets for both the ongoing 
war on terrorism and to enhance their internal security. To develop 
capabilities that they can sustain without continued U.S. assistance, 
some partners require low-cost, low-maintenance platforms.
    As stated in the question, the rationale to provide and support Mi-
17s involve pilot and maintenance personnel familiarity, as well as 
complementing prior inventories of these aircraft models; cultural 
suitability; and the partner nation's preferences. Decisions were 
guided by the commanders on scene. Past procurements focused on the Mi-
17 to leverage existing experience and because the aircraft provides 
critical capabilities not easily replaced by other platforms. The Mi-17 
is a multi-purpose aircraft that spans the medium- and heavy-lift 
categories, and can carry out attack and transport roles 
simultaneously. Simply stated, it is a low-tech platform that can lift 
a large payload.
    The Afghans have been using the Mi-17/Mi-8 series helicopters since 
the early 1980s due to its ability to operate at high-altitudes and in 
high temperatures with heavy loads. When the United States began 
rebuilding the Afghan Air Force (AAF), there were at least six Mi-17/
Mi-8 aircraft being operated by the Afghans. The Commander of U.S. 
Central Command (CENTCOM) decided to continue to support the Mi-17 due 
to: its proven operational capabilities in the extreme environments of 
Afghanistan; its relatively low cost; and the fact that the maintenance 
system for the Mi-17 is easier for the AAF members to operate--an 
important factor due to the limitations of the education system in 
Afghanistan. The Afghans have since been introduced to western 
helicopters in the form of the MD-530 which is a very basic, light 
training helicopter that will be used for their initial entry rotary 
wing training.
    The initial Iraqi Air Force procurement of 18 Mi-17s, one of the 
first procurement decisions made by the fledgling Iraq Ministry of 
Defense (MoD), was undertaken without assistance from U.S. advisors and 
proved problematic. The decision to fill out the Iraqi fleet with 22 
additional Mi-17s was made by the Government of Iraq (GoI) and 
supported by the Multi-National Security Transition Command--Iraq 
(MNSTC-I) to meet Iraq's priorities. The latter MoD contract was 
processed through the Foreign Military Sales (FMS) program which is a 
more robust and transparent approach for building Iraq's security 
forces. Iraq has not indicated any intent to procure additional Mi-17s.
    As the Iraq security forces and their sustaining institutions have 
grown more comfortable with U.S. equipment and the FMS program, the GoI 
has expressed increasing interest in U.S. helicopters. The Iraqi MoD 
has already purchased 24 Bell helicopters, and has shown interest in 
purchasing additional U.S.-made helicopters when funding is available. 
Also, the Department recently notified Congress of our intent to sell 
six observation and 10-12 utility helicopters to the Iraqi police 
forces. We will continue to work with Iraq using the FMS system.

    101. Senator Inhofe. Dr. Carter, what opportunities were U.S. 
companies given to compete their helicopters for this purpose or to 
compete for the procurement and maintenance of the Russian helicopters?
    Dr. Carter. Russian helicopters, such as the Mi-17, have been 
procured four times; competitive details are summarized as follows:

          In December 2007, the Army Program Executive Office for 
        Simulation, Training, and Instrumentation purchased 22 Mi-17 
        aircraft for an Iraq FMS case. The contract was awarded sole 
        source to ARINC, a U.S.-based firm, on the basis of unusual and 
        compelling urgency. The Justification and Approval was approved 
        by the Army Acquisition Executive.
          In 2008, the U.S. Navy Counter-Narcoterrorism Technology 
        Program Office (CNTPO) purchased 10 Mi-17 aircraft, through the 
        Strategic Missile Defense Command (SMDC), in support of an 
        Afghan requirement. The competitively awarded, Indefinite 
        Delivery/ Indefinite Quantity, Multiple Award Task Order 
        Contract has five U.S. prime contractors: ARINC, Raytheon, 
        Northrup Grumman, Lockheed Martin, and U.S. Training Center; 
        ARINC was competitively selected for this order.
          In 2009, the Naval Air Systems Command awarded a competitive 
        contract to a U.S. company, DTI, for four civilian Mi-17 
        aircraft in support of an Afghan requirement.
          In May 2011, the Army Nonstandard Rotary Wing Program Office 
        awarded a sole source contract, through the U.S. Army Aviation 
        and Missile Command (AMCOM), for 21 Mi-17 aircraft in support 
        of an Afghan requirement to Rosoboronexport (ROE), the Russian 
        Federation's approved military export agency. The Secretary of 
        the Army approved a Public Interest Determination and Findings 
        that ROE is the only lawful source under Russian export control 
        laws for the acquisition of military end-use Mi-17 aircraft. 
        Diplomatic exchanges had previously confirmed the Russian 
        assertions, first raised in November 2010, when the Russian 
        Federation Ministry of Foreign Affairs informed the U.S. 
        Ambassador to Russia that aircraft to be procured for the 
        Afghanistan Ministry of Defense were considered Military End 
        Use and, as such, Russian law required they be procured as 
        military items through ROE. Prior to May 2010, DOS sanctions 
        imposed on ROE precluded such a contract. Future procurement of 
        Russian aircraft for military end-use purposes is expected to 
        be subject to the same constraint.

    Sustainment and overhaul contracts should continue to provide 
competitive opportunities for U.S. companies in the future. Many of 
these aircraft, especially the civilian variants, are widely supported 
through both foreign and domestic commercial providers. At present, the 
U.S. Army, in its role as the designated, single Non-Standard Rotary 
Wing Program Office, is leveraging existing support contracts, which 
include the CNTPO SMDC IDIQ and an AMCOM Logistics Support Facility 
(LSF) contract. Both were competitively awarded contracts. As 
previously stated, the CNTPO SMDC IDIQ was awarded to five prime 
contractors (ARINC, Raytheon, Northrop Grumman, Lockheed Martin, and 
USTC), all of which are U.S. based firms. The LSF prime contractor is 
Science and Engineering Services, Incorporated (SESI), also a U.S. 
based firm.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                                  F-35

    102. Senator Chambliss. Dr. Carter, I am concerned that DOD has 
redirected money originally planned for F-35 purchases to buy 
significantly less-capable fourth generation F-18s which are unable to 
operate in contested air space and each year can operate in fewer and 
fewer environments. This is especially the case given the accelerated 
Russian and Chinese J-20 and T-50 development, the alarming 
proliferation of the very latest sophisticated surface-to-air missiles 
(SAM), as well as rapid development of Chinese sensors and other 
advanced systems. Not only are we buying these aircraft but we're going 
to have to pay to operate and sustain them for well over a decade at 
further expense to taxpayers. If confirmed, will you commit to 
examining this expenditure of taxpayers' resources and report back to 
us regarding the extent to which you believe this is a wise way to 
spend DOD and taxpayers' dollars?
    Dr. Carter. In building the fiscal year 2013 President's budget, 
the Department is working hard to balance risk appropriately, avoiding 
over-expenditure in some areas so that we can attenuate key shortfalls 
elsewhere. For the fiscal year 2013-2017 timeframe, DOD must fund a 
tactical air forces portfolio that meets security needs in terms of 
both capability and capacity in the face of significant budget 
pressures. The Department is also assessing to what extent it should 
extend the service life of DOD's legacy fleet of F/A-18A-Ds and F-16s 
to maintain appropriate inventory levels. The Department remains fully 
committed to the F-35 program and is actively managing JSF costs and 
schedule.

    103. Senator Chambliss. Dr. Carter, DOD has reduced the number of 
F-35 aircraft in the near-term budget plan by 246 over the last 2 
years. There are rumors that DOD may reduce the planned numbers even 
further in next year's budget request. How can DOD continue to delay 
the procurement of fifth generation fighters while buying more fourth 
generation fighters when the threat is so clearly increasing and fourth 
generation F-18 fighters cannot survive when flying against the latest 
threat SAMs that are being fielded today?
    Dr. Carter. Based on the current and projected threats, I believe 
it is critical that the U.S. transitions to a fifth generation 
capability across the Services, while maintaining sufficient legacy 
inventory capacity to prevail in current and near-term conflicts. DOD 
needs JSF to deal with advanced fighters and surface-to-air missiles 
worldwide, especially in the stressing electronic warfare environments 
of the future. Additionally, the F-22A modernization program will 
provide improved fifth generation capability versus a high-end foe. To 
ensure the United States possesses sufficient capacity of fighter 
attack aircraft, the Department funded production of the F/A-18E/F 
through fiscal year 2014. While this aircraft is not stealthy like JSF 
and F-22, it has advanced sensing and is highly capable against many of 
the threats faced today and expected to face in the future.

    104. Senator Chambliss. Dr. Carter, last year you said you needed 
about $5 billion over 4 years to pay for more F-35 flight test and 
development costs and justified a cutback in F-35 production aircraft 
to pay for it. But DOD actually cut over $12 billion from the F-35 
production program by reducing procurement and spent much of the money 
on fourth generation F-18s. I don't believe that shows much 
appreciation for the strategic need to retain our air dominance and 
follow through on our own Government's strategy to keep us ahead of 
China and Russia. Can you assure me that you will not cut fifth 
generation airplanes in the future to buy additional obsolete fourth 
generation airplanes?
    Dr. Carter. The Department is carefully assessing the best approach 
in balancing tactical air forces' capability and capacity, while 
managing JSF concurrency. JSF brings an unprecedented combination of 
advanced sensing, stealth, and firepower; that said, the program is 
still under development and in the past two budget submissions resulted 
in slowed production in order to properly fund development and allow 
manufacturing processes to mature. Also, in the fiscal year 2013 
budget, as with the 2012 submission, the Department faces significant 
resourcing pressures. The decision to procure additional F/A-18E/F 
aircraft in the fiscal year 2012 budget was an acknowledgement of the 
need to maintain sufficient DON inventory; the FA-18E/F is not as 
advanced as the JSF, but it is fully mature and highly capable against 
many of the threats we faced today and expect to face in the future.

                       C-130 ADVANCED PROCUREMENT

    105. Senator Chambliss. Dr. Carter, DOD did not request advance 
procurement (AP) funding for C-130s in fiscal year 2012 as you have 
normally done. When I queried DOD on this back in the spring DOD 
indicated that the AP funding was unnecessary since AP funding had been 
obligated late over the last 2 years. I did some research into this and 
learned that the Air Force notified DOD during the fiscal year 2011 
budget build process that they intentionally withheld previous year's 
AP funding for ``negotiating leverage with the contractor'' and were 
able to save money on a future lot of C-130s. However, the Air Force 
also told DOD that not having AP funding in fiscal year 2012 would 
create greater costs over the FYDP and result in later delivery of 
aircraft. In response to a request from this committee during mark-up, 
you recently sent the committee a letter on this issue. In response to 
the question, ``would the addition of AP funding in fiscal year 2012 
save resources over the FYDP,'' you responded that: ``DOD now believes 
that the inclusion of AP in fiscal year 2012 may save $54 million over 
the FYDP.''
    I appreciate your response and would just like to ask you, do you 
agree that, in the case of major acquisition programs where long lead 
items are needed to ensure the most efficient production process, that 
advanced procurement funding makes sense, assuming that the funding can 
be obligated in a timely manner?
    Dr. Carter. In most cases involving aircraft production under major 
defense acquisition programs, the use of advanced procurement funding 
to purchase long lead items makes sense.

                GUARD CHIEF IN THE JOINT CHIEFS OF STAFF

    106. Senator Chambliss. Dr. Carter, there is talk of making the 
Chief of the National Guard a member of the Joint Chiefs of Staff. Do 
you think the Chief of the National Guard should be a permanent member 
of the Joint Chiefs of Staff?
    Dr. Carter. No. The Chief of the National Guard Bureau is now a 4-
star general, attends Joint Chiefs of Staff meetings, and provides 
invaluable advice. Members of the Guard are members of the uniformed 
Services and adding its Chief to the Joint Chiefs of Staff would 
introduce inconsistencies among its members, while at the same time 
creating the impression that the National Guard is a separate military 
Service.

                    RESEARCH AND DEVELOPMENT FUNDING

    107. Senator Chambliss. Dr. Carter, continued investment in defense 
R&D is critical to ensuring our future technological superiority. 
Specifically, DOD's science and technology programs engage the Nation's 
universities and other research entities in basic and applied research 
on behalf of our national security. How do you plan to sustain support 
for these programs despite fiscal constraints?
    Dr. Carter. Secretary Panetta set the strategic direction for the 
Department in his October 13, 2011, testimony to the House Armed 
Services Committee when he said:

         ``Innovation is instrumental to the future of our joint force. 
        We've expanded many of our--what we refer to in years past as 
        low-density capabilities, and we've fielded many new 
        technologies. We must continue to unleash innovation in the 
        ranks and challenge ourselves to leverage these emergent 
        capabilities in new and creative ways.''

    Following this guidance, it is clear that the Department needs to 
continue to invest in the engine of innovation--basic and applied 
research on behalf of our national security. This investment is guided 
by the Assistant Secretary of Defense for Research and Engineering, and 
I will look to the Assistant Secretary to advocate for, and shape the 
Department's investment, in these critical capabilities.

    108. Senator Chambliss. Dr. Carter, are you still planning for 2 
percent real growth for DOD basic research programs in the coming 
years?
    Dr. Carter. This level of investment in basic research remains a 
goal, however, with the current budgetary pressures facing DOD, we will 
have to carefully weigh this goal in the context of overall DOD 
priorities and needs. At the same time, I do affirm the role and 
importance of basic research in providing long term capabilities for 
the Department and Nation. I also can echo Secretary Panetta's comments 
at the October 13, 2011, hearing before the House Armed Services 
Committee, when he said:

         ``Innovation is instrumental to the future of our joint force. 
        We've expanded many of our--what we refer to in years past as 
        low-density capabilities, and we've fielded many new 
        technologies. We must continue to unleash innovation in the 
        ranks and challenge ourselves to leverage these emergent 
        capabilities in new and creative ways.''

    The Department's basic research investment, of which roughly 60 
percent is accomplished through universities, is the bedrock of 
innovation for the Department. I believe it is important to maintain a 
healthy and vigorous investment in basic research and to maintain a 
clear link from the Department to the academic community. It is our 
investment in basic research that enables the connection.

    109. Senator Chambliss. Dr. Carter, fostering the next generation 
technical workforce for DOD and its industrial base is another key 
ingredient in our future security. Can you explain how DOD plans to 
enhance its science, technology, engineering, and mathematics programs 
in order to ensure that the Nation has a qualified national security 
workforce going forward?
    Dr. Carter. The Department conducts effective programs along the 
full Kindergarten-Workforce science, technology, engineering and 
mathematics (STEM) pathway to ensure that DOD and our Nation's 
industrial base are supplied with the technical workforce critical to 
preserving national security. Current and projected DOD budget 
limitations offer few opportunities to enhance the scope of these 
programs, but proactive management will continue to enhance the impact 
that these programs can achieve through innovative STEM activities. The 
Assistant Secretary of Defense for Research and Engineering is 
delegated lead responsibility for DOD STEM efforts. Several specific 
examples of STEM efforts coordinated and supported by the ASD(R&E) are 
as follows:

    1.  DOD STEM Executive Board--Leadership for the Department's STEM 
efforts is provided by the DOD STEM Executive Board, chaired by 
ASD(R&E). The STEM Executive Board aims to maximize the effectiveness 
of DOD STEM investments within budgetary limits. Technological 
solutions to national security at all levels and the pace of 
technological change require an adept military and civilian workforce. 
The Executive Board is: developing a taxonomy to describe the military 
and civilian STEM workforces; articulating necessary skill sets for a 
technically competent workforce; and aligning DOD investments and 
policies across the DOD components. Further, the Executive Board 
synchronizes the DOD's future STEM workforce with the Department's S&T 
priorities.
    2.  National Academies Study--A joint National Academy of 
Engineering (NAE)-National Research Council (NRC) study funded by 
ASD(R&E) is assessing the science, technology, engineering, and 
mathematics (STEM) workforce demands for the Department and strategies 
for meeting these demands. The work scope includes: reviewing current 
and projected STEM workforce demands relevant to DOD and defense 
industrial base needs; identifying emerging science and technology 
fields that will likely have significant impact on DOD and national 
needs; and assessing current limitations and options for overcoming 
impediments to meeting these needs. The results of this study will 
enable the Department to enhance its STEM efforts by shaping 
investments more closely to expected future needs.
    3.  National Defense Education Program (NDEP)--Directly builds the 
Department's technical workforce and fosters STEM skill development:

      a.  The Science, Mathematics, And Research for Transformation 
(SMART) scholarship-for-service program selects highly-qualified 
undergraduate and graduate students pursing any of 19 STEM disciplines 
important to DOD. Students are provided a stipend for tuition, fees, 
books, health insurance, and housing to support them in their studies 
and perform internships in the Department's R&D facilities to develop 
key skill-sets for DOD employment. Students commit to a one-to-one 
service obligation and are eligible for up to 5 years of funding. Since 
2006, there have been over 1,100 SMART U.S. student participants who 
have studied at over 250 colleges and universities. Nearly 400 have 
graduated with bachelor's, master's, or doctoral degrees and joined the 
DOD workforce.
      b.  The National Security Science and Engineering Faculty 
Fellowship (NSSEFF) program makes grants to leading researchers to work 
on important research questions of great value to DOD. Since 2009, 29 
NSSEFF fellows at 20 research universities support more than 300 
graduate and undergraduate students and postdoctoral scholars and 
reported 125 interactions with DOD laboratories and Services.
      c.  Systems Engineering (SE) Capstone Program and Joint 
Cooperative Unmanned Systems Initiative (JCUSI)-Project-based learning 
exposes engineering students to systems engineering for DOD. These 
initiatives build institutional capacity for systems engineering for 
DOD and defense industrial base. Students are mentored by DOD personnel 
to solve actual DOD systems engineering problems. Over 300 students at 
14 universities and Service Academies completed SE Capstone projects in 
the 2010-2011 academic year. JCUSI exposes cadets and midshipmen to 
joint autonomous vehicle operating environments so they can be 
immediately productive in similar environments when deployed as 
officers after graduation. JCUSI involves 50 cadets and midshipmen from 
all three of the Service academies in a joint autonomous systems 
scenario integrating land, air, and surface sea autonomous vehicles.
      d.  K-12-DOD and its partners support and engage with elementary, 
middle school, and high school initiatives that inspire students to 
pursue STEM fields. National and local initiatives are designed to 
build STEM skills. Over 1,700 DOD scientists and engineers have engaged 
with more than 180,000 students and 8,000 teachers in 28 States. Since 
2009, the Department has developed ``Lab TV,'' a series of Web-based 
video programs of cutting-edge DOD laboratory research used by 
educators. The top 6 Lab TV programs have posted over 350,000 views, 
and several programs have ``gone viral'' on the YouTube Lab TV Channel.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                       FOOD SERVICE DISTRIBUTION

    110. Senator Wicker. Dr. Carter, the Continental U.S. Subsistence 
Prime Vendor Program was created to bring the efficiency of the 
domestic food service distribution industry to military food service. 
Through this program, distributors provide the military with the best 
products available in the marketplace at competitive prices in the most 
efficient manner possible.
    I am concerned the Defense Logistics Agency's (DLA) proposed non-
commercial contracting model threatens the success of the Subsistence 
Prime Vendor Program. By proposing contract terms inconsistent with 
current industry practices, DLA may be limiting competition, which 
could result in increased food costs for taxpayers and lower service 
levels for our military.
    Can you provide a rationale for DLA's move toward a proposed non-
commercial model?
    Dr. Carter. I can assure you the DLA is committed to using 
commercial terms and conditions to the most reasonable extent possible. 
Nonetheless, DLA was concerned that the Program, as structured, was 
vulnerable to price manipulation and fraud because of a lack of 
transparency. Over the past several years, DLA investigated options to 
address these vulnerabilities of the existing commercial model. DLA met 
with the foodservice industry, including the International Foodservice 
Distributors Association and individual companies, and, more recently, 
issued a request for information. Discussions focused on how to 
incorporate practices to increase transparency of the commercial 
business model, and DLA also sought input on a proposed pricing model.
    Recent Program changes are meant to reduce the risk of overcharges 
to the Government. The changes do not alter the fact that this is a 
commercial acquisition with specific provisions added only to the 
extent necessary to protect the Government. Among other things, the 
changes will ensure that all rebates and discounts that prime vendors 
receive from manufacturers, no matter how those rebates and discounts 
are described or designated by the vendors, are returned to the 
Government.
    The changes also afford the Government more oversight to prevent 
fraud by ensuring the Government has the right to review the original 
manufacturer's invoices to confirm the Government is charged the 
manufacturer's price. These changes are necessary to prevent the 
Government from paying more than is necessary for these products and to 
allow the Government to know for what it is paying.
    The contracts will remain fixed-price with economic price 
adjustment, but the pricing definitions have been clarified. These 
changes will allow insight into the management of the program that 
previously did not exist. DLA's changes have been challenged in bid 
protests filed at the Government Accountability Office, and more 
recently, the Court of Federal Claims. In a decision dated October 12, 
2011, the Court of Federal Claims determined that one provision DLA 
included in its CONUS subsistence prime vendor solicitations was not 
legally supportable, and DLA plans to remove that provision in 
accordance with the Court's finding.
    DLA will continue to work with the food distribution industry to 
craft a prime vendor model that maximizes competition and the use of 
commercial practices while protecting the Government and taxpayers from 
potential fraud and overcharges

    111. Senator Wicker. Dr. Carter, what additional oversight would 
such a model provide to ensure the prevention of waste, fraud, and 
abuse?
    Dr. Carter. The changes are necessary to prevent the Government 
from paying more than is necessary for these products and to allow the 
Government to know for what it is paying. The changes also afford the 
Government more oversight to prevent fraud by ensuring the Government 
has the right to review the original manufacturer's invoices to confirm 
the Government is charged the manufacturer's price.
    The contracts will remain fixed-price with economic price 
adjustment, but the pricing definitions have been clarified. These 
changes will allow insight into the management of the program that 
previously did not exist. DLA will continue to work with the food 
distribution industry to craft a prime vendor model that maximizes 
competition and the use of commercial practices while protecting the 
Government and taxpayers from potential fraud and overcharges

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    112. Senator Wicker. Dr. Carter, we have spent over $30 billion on 
the Mine Resistant Ambush Protected (MRAP) Vehicle fleet of vehicles. 
To what extent have we maximized the capability of this platform?
    Dr. Carter. Congress generously provided nearly $50 billion in 
support of protecting America's most precious resources: soldiers, 
airmen, sailors, marines, and special operators. Currently, more than 
27,000 MRAP vehicles maximized this capability in supporting unique 
Service missions and to an even greater extent to fighting unit 
requirements.
    There are dozens of MRAP variants with common exceptional 
protection capabilities, but also unique customizations in support of 
specific mission roles. This includes MRAP ambulances, wrecker and 
recovery vehicles, troop transport, route clearance, command and 
control platforms, and Special Forces variants, to name a few. There 
are significant commonality and systems design attributes, and 
concurrent additional capability adaptations are ongoing.
    Because of the significant payload capacity of many of the 
variants, commanders in theater have options, based on threat, to apply 
different armor protection kits. System engineers and industry design 
teams continue to develop solutions to keep the MRAP vehicle fleet the 
most protected in the entire theater. Also, in support of the off-road 
terrain throughout Afghanistan, independent suspensions have been 
integrated on virtually every vehicle in theater.

    113. Senator Wicker. Dr. Carter, have you considered integrating 
additional capability into this very survivable platform?
    Dr. Carter. Throughout the entire execution of the Joint Mine 
Resistant Ambush Protected (MRAP) vehicle program, the teams operated 
with a sense of urgency on mission capabilities for the MRAP fleet. 
With the help of our very capable industry partners, DOD integrated 
dozens of capabilities and literally hundreds of configurations in 
response of the Warfighters' demand signal.
    The most recent example is adding impressive under-body protection 
for the MRAP All-Terrain Vehicle (which is already highly survivable 
and effective off-road) with the Underbody Installation Kits (UIK). 
Because of the payload capacity of this configuration, the system 
engineers designed a significant upgrade that is being installed on the 
in-theater fleet rapidly.
    Numerous adaptations of the MRAP vehicle have occurred to adapt the 
more general purpose troop carrier designs to ambulances, wrecker and 
recovery vehicles, and command and control platforms. Additionally, 
numerous variations of light weapons were integrated onto the roofs.
    Finally, in addition to the all of the electronics and power 
integration for radio communications, counter-improvised explosive 
device capabilities (jammers), and displays, a significant portion of 
the fleet has evolved to have independent suspensions, creating a more 
capable, and more effective vehicle platform. The MRAP vehicles proved 
inherent capacity and versatility to integrate requirements; DOD will 
continue to exploit this capacity as the mission demands.

    114. Senator Wicker. Dr. Carter, we have equipped the Afghan 
National Army (ANA) and Afghan National Police (ANP) with a substantial 
number of vehicles. What steps are we taking to ensure the Afghans can 
sustain this fleet going forward?
    Dr. Carter. The long-term future plan is for the ANSF to have an 
organic maintenance and supply capability. There are many efforts 
underway on many levels by International Security Assistance Force 
(ISAF), International Joint Command (IJC), and NATO Training Mission-
Afghanistan (NTM-A), in conjunction with Afghan senior leaders as part 
of the ISAF campaign plan.
    The reality in Afghanistan is that the logistics systems are very 
early in the process of being built. The ANA transitioned to organic 
maintenance at the organizational level in April 2011. Its equivalent 
of Direct Support-level maintenance is contracted by the Combined Joint 
Logistics Office (CJ4). Its General Support equivalent (at the national 
level in Kabul) has some organic capability, but not what can be called 
a robust industrial base.
    For the ANP, CJ4 contracted maintenance for weapons and vehicles. 
NTM-A is conducting ongoing analysis on how to create an enduring ANP 
maintenance system. The ANP is likely a couple years behind the ANA. 
The ANA Air Force has NTM-A/Combined Security Transition Command-
Afghanistan-provided contract logistics support (CLS), and transition 
to organic logistics support is a long-term effort.
    The bottom line vision is to foster organic maintenance, however 
the reality today is that maintenance is largely CLS as DOD continues 
to develop ANSF logistics capacity.

                                PAKISTAN

    115. Senator Wicker. Dr. Carter, recognizing that the Pakistan 
Counterinsurgency Capability Fund provides the Government of Pakistan 
with critical goods that are manufactured here in the United States, 
what is the status of DOD's certification of Pakistan's 
counterinsurgency efforts?
    Dr. Carter. The Pakistan Counterinsurgency Fund (PCF) is 
instrumental in the training, advising, and equipping of the Pakistan 
military and paramilitary forces so that they can pursue the near-term 
objective of eliminating terrorist sanctuaries and disrupting the al 
Qaeda network. The Department apprises Congress regularly of our 
assessment of Pakistan's counterinsurgency efforts through two primary 
means. First, the biannual report to Congress, Progress Toward Security 
and Stability in Pakistan, provides our overall assessment of 
Pakistan's counterinsurgency efforts. The next edition of that report 
is due by the end of October. Additionally, DOD must notify Congress 
prior to its use of PCF funds, and this is achieved by submitting a 
spending plan to Congress, which details how the Department intends to 
spend the PCF funds. The delay in appropriations for fiscal year 2011 
for PCF--followed shortly thereafter by increased tensions in the 
relationship with Pakistan as a result of the raid that killed Osama 
bin Laden--have led to a delay in notification of the fiscal year 2011 
PCF spending plan.

                      JOINT LIGHT TACTICAL VEHICLE

    116. Senator Wicker. Dr. Carter, what is DOD's position regarding 
the Senate Appropriations Committee's termination of Joint Light 
Tactical Vehicle (JLTV)?
    Dr. Carter. The proposed termination will fail to resolve clearly 
identified capability gaps in U.S. Army and U.S. Marine Corps light 
tactical vehicle fleets. Those gaps cannot be cost effectively 
addressed by rebuilding the High Mobility Multipurpose Wheeled Vehicle 
(HMMWV) fleet and would result in the Services fielding a light vehicle 
that lacks protection for the crew and provides insufficient mobility, 
reduced fuel efficiency, decreased reliability, inadequate net-ready 
integrated C4I suite, and an inability to meet both current payload 
requirements and future combat loads. Following an extensive technology 
development phase, a comprehensive analysis of alternatives, and cost-
informed trades throughout, the JLTV acquisition strategy planned is 
the most effective and affordable approach to deliver the required JLTV 
vehicle capability.
    The Army and Marine Corps completely revised the JLTV Acquisition 
Strategy, finalized the essential requirements, and made the necessary 
cost informed trades to achieve an affordable program. The Improvised 
Explosive Device-threat environment and fiscal environment have changed 
significantly since approval of the original JLTV acquisition strategy 
in 2007. The Army and the Marine Corps have made the proper adjustments 
in response to the changing threat, fiscal environment and 
congressional concerns. The Technology Development phase was executed 
on schedule and within budget, accomplishing its intent to identify the 
capabilities that are achievable and affordable to control cost growth. 
Senior leadership for the Army and Marine Corps agreed on requirements 
and reduced the Engineering, Manufacturing and Development (EMD) phase 
by 15 months, which will significantly reduce the overall expense of 
EMD.

                  F-16 SERVICE LIFE EXTENSION PROGRAM

    117. Senator Wicker. Dr. Carter, the Air Force fiscal year 2012 
budget request contains money for an F-16 service life extension 
program (SLEP). Can you describe how SLEP money will be used between 
structural (e.g. full scale durability testing) and avionics 
modernization?
    Dr. Carter. The fiscal year 2012 President's Budget (PB) reflects 
the F-16 SLEP to include a structural program (Full-Scale Durability 
Test and Structures Engineering, Manufacturing and Development phase) 
as well as an avionics modernization effort that includes active 
electronically scanned array radar, center pedestal display, ALQ-213 
electronic warfare suites, and integrated broadcast service. Total 
funding as reflected in fiscal year 2012 PB is $24.767 million; $12 
million for avionics modernization and $12.767 million for structures. 
The $12 million associated with the F-16 SLEP avionics modernization 
program (now known as combat avionics programmed extension suite) will 
be committed to initial development and risk reduction efforts.

    118. Senator Wicker. Dr. Carter, is it premature to start the 
avionics acquisition activity prior to durability testing being 
completed and confirming viability of the F-16 fleet?
    Dr. Carter. The Department does not believe starting the avionics 
activity prior to completion of durability testing is premature. Based 
on studies by F-16 structural engineers and Lockheed Martin, I am 
confident that, with some modifications, the F-16 service life can be 
extended to at least 10,000 Equivalent Flight Hours (EFH) on the Block 
40/50 aircraft. The full-scale durability testing will validate that 
study and determine the extent of the modifications required to bring 
these aircraft to 10,000 EFH (the goal is 12,000 EFH). Additionally, 
the fleet viability board recently completed their study of the Block 
40/50 aircraft. This study concluded that although the weapon system 
cannot achieve 5th generation fighter capability, it is more affordable 
and can be made viable and relevant with respect to future force 
structure requirements. F-16 SLEP avionics modernization acquisition 
activity is programmed to start in fiscal year 2012 in order to meet 
the Air Combat Command's requirement for Initial Operational Capability 
(IOC) in fiscal year 2018.

            FOREIGN MILITARY SALES TO THE REPUBLIC OF KOREA

    119. Senator Wicker. Dr. Carter, how does the U.S. Air Force intend 
to support a Korean-led competition and selection for both avionics and 
active electronically scanned array (AESA) radar for their KF-16 
fighter program?
    Dr. Carter. To date, the Department did not receive a Letter of 
Request (LOR) from the Government of Korea concerning their proposed F-
16 avionics and AESA radar modernization program. Following receipt of 
an LOR, we will work with the Korean Government to formalize their 
requirements and provide a Letter of Offer and Acceptance (LOA) in 
accordance with the AESA acquisition radar strategy. Acquisition for 
FMS purchases is done in accordance with U.S. law and DOD regulations 
and procedures. The competitive procurement process is used to the 
maximum extent possible when procuring articles or services. Sole 
source procurement can be approved by the implementing DOD Service when 
the FMS purchaser requests it in writing and provides sufficient 
rationale. Due to the complex interaction between the aircraft avionics 
and the AESA radar, we anticipate that the procurement of the avionics 
will likely be combined with the AESA procurement.

    120. Senator Wicker. Dr. Carter, how does a potential Taiwan F-16 
Letter of Request for Letter of Acceptance affect U.S. Air Force plans?
    Dr. Carter. The Department received an updated Taiwan F-16 Letter 
of Request (LOR) for Letter of Offer and Acceptance (LOA) in September 
2011 and subsequently provided congressional notification of intent to 
sell on 21 September 2011. The LOR does not include a request to sole 
source the active electronically-scanned array (AESA) radar. Therefore, 
the U.S. Air Force F-16 Program Executive Officer will select an 
acquisition strategy for Taiwan's F-16 modernization and potential U.S. 
Air Force modernization efforts that ensures full and open competition 
in accordance with U.S. law and regulations. U.S. Air Force 
modernization efforts are not hinged upon Taiwan's investments and are 
not necessarily affected by this sale.
                                 ______
                                 
               Questions Submitted by Senator Rob Portman

            F-136 FIGHTER ENGINE TEAM SELF-FUNDING PROPOSAL

    121. Senator Portman. Dr. Carter, what authorities prohibit DOD 
from permitting the continued use of limited government equipment 
deemed essential to the F-136 Fighter Engine Team (FET) self-funding 
proposal?
    Dr. Carter. There are no authorities that prohibit the Department 
from permitting use of Government equipment deemed essential to the 
F136 self funding proposal. However, if the Department determines that 
certain equipment is useful to another program, it will use that 
equipment in the most optimal and cost-effective manner. Additionally, 
if continued use of Government equipment following the termination of a 
contract would incur additional costs to the Government, the Department 
would oppose that use.

    122. Senator Portman. Dr. Carter, what steps have you taken to 
better understand this self-funding proposal and identify processes or 
procedures within DOD that would need to be altered to facilitate such 
a proposal?
    Dr. Carter. As I testified, I am willing to meet with General 
Electric and learn more about the self-funding proposal. General 
Electric is a valued partner on many DOD programs, including aircraft 
engines, and anytime an industry partner has new ideas on 
affordability, the Department is interested in learning about these 
ideas.

                  CORROSION PREVENTION AND MITIGATION

    123. Senator Portman. Dr. Carter, given that Congress has 
consistently added funding to strengthen the corrosion prevention and 
mitigation efforts of DOD, and GAO has consistently encouraged DOD to 
fully fund this successful cost reduction program, what are your plans 
for addressing this in the fiscal year 2013 budget request?
    Dr. Carter. The DOD corrosion prevention and mitigation program is 
successful and is important for the long-term viability of our 
equipment and infrastructure. The Government Accountability Office 
cited the program for achieving significant cost avoidance by reducing 
the incidence and effects of material degradation on DOD weapon systems 
and infrastructure.
    The Department is working diligently in preparing the fiscal year 
2013 budget request. There are many requirements competing for 
constrained funding. As a part of this process, the corrosion 
prevention and mitigation program budget is being considered, along 
with other important programs. The final funding level will be 
determined over the next several months.

    124. Senator Portman. Dr. Carter, in light of DOD's F-22/F-35 
corrosion evaluation, what steps are being taken with the KC-46A 
program to avoid repeating mistakes that result in significantly higher 
than expected long-term sustainment costs?
    Dr. Carter. The Department understands the critical importance of 
corrosion prevention and control (CPC) to maintain the airworthiness 
and control the long-term total ownership costs of the KC-46A. Specific 
steps the Department is taking in this regard include the following:

    1.  CPC is covered by our Weapon System Integrity Program (WSIP) 
approach. The WISP is composed of four distinct integrity programs that 
address corrosion across the entire aircraft system, including 
structures, mechanical equipment and subsystems, avionics, and 
propulsion systems.
    2.  As a commercial derivative system, the KC-46A leverages the 
corrosion control processes established for commercial aircraft. Boeing 
is on contract to provide a KC-46A CPC Plan, which will be reviewed and 
approved by the Government.
    3.  Given the environmental concerns regarding the chromated 
coating systems that traditionally are used for corrosion protection 
for military systems, the Air Force has convened a KC-46 Outer Mold 
Line Coating System Independent Review Team to review options and make 
recommendations for corrosion coatings. The team includes technical 
experts from industry, the Air Force, the Navy, and the Corrosion 
Prevention Office in the Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics.
    4.  A Corrosion Prevention Advisory Board, comprised of 
representatives from engineering, manufacturing, quality assurance, and 
other areas involved in the design, engineering development, and 
production of the aircraft, provides ongoing oversight during the 
execution of the program.
    5.  The Department includes CPC in its ongoing oversight 
activities, including reviews by the Overarching Integrated Product 
Team.
    6.  The program office has ongoing dialogue with corrosion experts 
in the Navy's P-8 program office about a Boeing commercial derivative 
aircraft, which has a robust CPC program, given that aircraft's 
corrosive operating environment.
                                 ______
                                 
             Questions Submitted by Senator Kelly A. Ayotte

                     REDUCTION IN DEFENSE SPENDING

    125. Senator Ayotte. Dr. Carter, the President has called for $400 
billion in reductions to national security spending over a 10-year 
period starting in 2013. Secretary of Defense Leon Panetta and General 
Martin Dempsey acknowledge that a further reduction of defense spending 
would be detrimental to our national security. With your acquisitions 
background, what programs and capabilities must not be cut if the 
Federal Government is to fulfill its constitutional responsibility of 
securing the common defense?
    Dr. Carter. I agree that there is a point beyond which additional 
cuts place national security at risk. However, Secretary Panetta has 
clearly stated that everything must be ``on the table'' when 
considering these potential reductions. Given the potentially 
significant future budget reductions we are facing, DOD is examining 
all programs for affordability and national security requirements.

                     AUDIT OF DEPARTMENT OF DEFENSE

    126. Senator Ayotte. Dr. Carter, as you are aware, DOD is one of 
the few agencies in the entire Federal Government that cannot pass an 
independent audit of its finances. DOD's lack of audit readiness makes 
it difficult to implement efficiencies, achieve savings, and direct 
increasingly scarce defense dollars to higher priorities. In your 
response to the advance policy questions, you concede that, ``. . . 
there has been limited progress made towards auditability until 
recently.'' Why, in your view, is DOD not auditable today?
    Dr. Carter. DOD's massive size and complexity make it hard to 
achieve full auditability. DOD financial processes were established and 
ingrained in systems long ago. These processes and systems were 
designed for budgetary accounting--not proprietary or commercial 
accounting called for in the CFO Act.

    127. Senator Ayotte. Dr. Carter, what are the most significant 
challenges to making DOD auditable by the 2017 statutory deadline?
    Dr. Carter. To meet standards in CFO Act, there is a substantial 
amount of work to be done. Some of the most significant impediments 
include:

        <bullet> DOD has thousands of business and financial systems 
        which support ongoing operations. The process of modifying 
        these systems is complex, time consuming, and costly.
        <bullet> DOD business and financial management systems are not 
        fully integrated and do not always collect data at the 
        necessary transaction level.
        <bullet> Reliable end-to-end processes and internal controls 
        have not fully been defined to support financial reporting.
        <bullet> DOD lacks sufficient operational and financial 
        personnel experienced in financial audits.

    128. Senator Ayotte. Dr. Carter, what is your plan to overcome 
those obstacles?
    Dr. Carter. Meeting these challenges and improving our business 
processes have more attention in the Department than ever before. DOD 
will address them by changing the way it does business. To realize 
success, the Department is using a streamlined approach, implemented in 
August 2009, which focuses on improving and auditing the information 
used to manage the Department. Improving the information used to 
manage--budgetary and mission critical asset information--allows 
commanders and other leaders to better meet mission needs with their 
available resources. I believe this alignment of operational and 
financial objectives is the most effective incentive to improve 
financial management.
    The Department is committed to achieving auditability goals and has 
taken significant steps to ensure the goals are achieved by September 
30, 2017, as directed by Congress. There is still a great deal of work 
required to further improve financial and business processes in order 
to meet this goal. I believe DOD can succeed because it has a well 
defined plan with specific short-term and interim-term milestones and a 
long-term roadmap. The Department also provided resources for the 
effort (approximately $300 million per year), and a clear governance 
process. Overall accountability rests with the Deputy Secretary of 
Defense and CMO; however, day-to-day responsibility falls to the Chief 
Financial Officer (CFO) and DCMO and their staffs, as well as line 
management throughout the DOD business enterprise. To meet audit 
challenges, we have developed an effective partnership between the CFO 
and DCMO communities that will help with implementation. The DCMO and 
the Military Department CMOs play an integral role in the governance 
processes, including overseeing the implementation of new systems and 
the processes they enable. Senior leaderships within the Military 
Departments are committed to, and accountable for accomplishing these 
interim goals.

    129. Senator Ayotte. Dr. Carter, what can Congress do to help?
    Dr. Carter. Continued attention and oversight from Congress 
encourages more attention and participation from the non-financial 
management community to sustain the current focus. Additionally, 
providing a timely appropriations bill without the use of multiple 
continuing resolutions will help leaders devote more time to audit 
readiness.

                          JOINT STRIKE FIGHTER

    130. Senator Ayotte. Dr. Carter, the F-35 JSF will form the 
backbone of U.S. air combat superiority for generations to come. 
However, in order to guarantee the continued success of this program, 
it is imperative that this effort be followed with solid analyses of 
the JSF life cycle costs so both DOD and Congress can make well-
informed decisions about the program in the future. Can you provide an 
update on what investments or changes have been made in the development 
and design of the F-35 to reduce operations and support costs over the 
life of the program?
    Dr. Carter. The JSF has been designed to improve maintainability 
and overall supportability over legacy platforms. As the aircraft 
design matures, the program office is actively managing systems to 
ensure they meet or exceed their reliability design specification, and 
identify opportunities for Life Cycle Cost (LCC) reductions. In cases 
where systems fall short of meeting their goal, or where significant 
LCC reduction opportunities are identified, the JSF Program Office is 
making the appropriate programmatic and system/component modifications 
to increase reliability, while reducing LCC. In addition, we are 
initiating a targeted affordability program to identify technical and 
programmatic changes that will reduce the operating cost of the system, 
which will be tracked through our affordability management plan, the 
draft of which will be available early next year. The program is also 
conducting a business case analysis on the sustainment strategy to 
identify if changes to the sustainment baseline are required to achieve 
the best value solution.

    131. Senator Ayotte. Dr. Carter, if the JSF program were canceled, 
what would be the operations and support costs for the legacy fleet 
that JSF is replacing? Please provide data that can be directly 
compared to the JSF. Please use the same time period for both.
    Dr. Carter. The JSF is scheduled to replace the AV-8B, F/A-18 A-D, 
and F-16 for the U.S. Military Services. A portion of the F/A-18A-D and 
F-16 fleet is already planned for service life extensions to meet force 
structure requirements. If the JSF were canceled, the Services would 
have to assess the possibility of even more aircraft having service 
life extended. For many of those aircraft with excessive flight hours, 
extending service life would not be an option, and they would have to 
be retired. It is possible that the development of other platforms 
would be required. The range of options that would need to be assessed 
in this unlikely scenario is unlimited and makes a direct comparison of 
data extremely difficult.

    132. Senator Ayotte. Dr. Carter, will operations and support costs 
for the F-35 be the same, more than, or less than the legacy aircraft 
it will replace?
    Dr. Carter. DOD's analysis is that the costs per aircraft to 
operate and sustain the JSF are less than the F-22, about the same as 
the F-15C/D, and more than the F-16 and F-18. Given the significant 
increase in capability, it is not unreasonable that JSF costs more to 
operate and sustain than some legacy aircraft.

                           IRAQ TROOP LEVELS

    133. Senator Ayotte. Dr. Carter, I am concerned about the December 
deadline in Iraq. Multiple senior military officials have expressed 
concerns regarding Iraq's ability to independently provide for their 
external defense and air sovereignty. Iraq will also require continued 
development in the areas of logistics, sustainment, intelligence, and 
training. It is important to bring our mission in Iraq to a successful 
conclusion. The Obama administration is considering keeping 3,000 
troops in Iraq beyond the December deadline in order to achieve this 
objective. What have our commanders on the ground requested for troop 
levels?
    Dr. Carter. In 2008, the United States concluded a Security 
Agreement with Iraq, which established conditions for the temporary 
presence of our forces in the country and for their withdrawal by the 
end of 2011. The United States complied with the terms of that 
agreement, and will comply with the requirement to withdraw our forces 
by the end of 2011.
    However, the Departments believe that an enduring security 
partnership with the Iraqi Government and people is in the best 
interest of the United States, and a continuing relationship with the 
Iraqi Security Forces (ISF) would be an important part of that 
partnership.
    The United States is currently in negotiations with the Iraqi 
Government about the nature of that relationship. America wants a 
normal, productive relationship with Iraq going forward--a partnership 
like we have with other nations around the world.
    Our negotiations with the Iraqis so far have focused on possible 
mission sets to support the ISF in areas where Iraq has identified 
shortfalls, such as logistics, air and maritime security training, 
combined arms training for Iraq's external defense, and intelligence 
fusion for Iraqi counterterrorism operations. Any post-2011 U.S. forces 
presence upon which the United States and Iraq might ultimately agree 
would flow from the requirements necessary to support training and 
related mission sets, including areas that the Iraqis identify as key 
to addressing their shortfalls.
    Again, there are no final decisions--nor reached any agreement with 
the Iraqis--about a post-2011 U.S. forces presence in Iraq.

    134. Senator Ayotte. Dr. Carter, what have the Iraqis requested?
    Dr. Carter. On August 2, Iraqi President Talabani, upon the request 
of Prime Minister Maliki, held the third meeting of all major Iraqi 
political parties to discuss the nature and details of the U.S.-Iraq 
security partnership under the terms of the Strategic Framework 
Agreement, and how this would be affected by a potential U.S. presence 
in Iraq after December 31, 2011.
    At the conclusion of that meeting, the parties' leadership 
authorized Iraqi Deputy Prime Minister Shaways to issue the following 
statement: ``Participants have agreed to mandate the Iraqi Government 
to start talks with the American side. Talks are limited to training 
issues under the Strategic Framework Agreement due to Iraq's need for 
training. A relationship must be designed in all aspects to support the 
full sovereignty of Iraq. The political leaders will monitor the talks 
to consider any final agreement with the American side. These talks 
must be conducted with a spirit of cooperation.''
    Consistent with this Iraqi position, the United States began 
negotiations with Iraq on the nature of this potential U.S.-Iraq 
security relationship post-2011, including training of Iraqi Security 
Forces (ISF) and related missions. For some time, we have had informal 
consultations with our Iraqi partners, including senior ISF officials, 
regarding remaining ISF gaps and areas in which Iraq might request 
training post-2011. These areas include combined arms training, 
intelligence fusion, air and maritime security training, and logistics. 
Our negotiations to date have focused on the possible mission sets to 
support the ISF in these and other areas.
    However, there are no final decisions, nor reached any agreement 
with the Iraqis, about a post-2011 U.S. forces presence in Iraq.

    135. Senator Ayotte. Dr. Carter, what, in your view, is the correct 
troop level?
    Dr. Carter. The post-2011 U.S. force presence and mission set, if 
any, will be addressed through U.S. negotiations with Iraqi leaders. 
Because discussions are ongoing, no final agreement with Iraq has been 
reached, no final decisions have been made, and the current operative 
plan remains that the United States will remove all of its forces by 
the end of 2011. However, if the United States were to have a post-2011 
U.S force presence, it would be at a much lower level than the current 
level of U.S. forces in Iraq.
    Again, there are no final decisions, or any agreement reached with 
the Iraqis, about a post-2011 U.S. force presence in Iraq.

    136. Senator Ayotte. Dr. Carter, what missions will the remaining 
troops perform?
    Dr. Carter. We are currently in negotiations with the Iraqi 
Government about the nature and scope of a potential future 
relationship. Our discussions with the Iraqis are focused on the types 
of training the United States may provide after December 31, 2011, and 
we have made no final decisions--nor reached any agreement with the 
Iraqis--about the nature of a U.S. presence in Iraq post-2011. We want 
a normal, productive relationship with Iraq going forward, like we have 
with other countries in the region and around the world.
    For some time, we have had informal consultations with our Iraqi 
partners, including senior Iraqi Security Forces (ISF) officials, 
regarding ISF gaps and areas in which the ISF might request training 
post-2011. These areas include combined arms, training necessary for 
Iraq's external defense; intelligence fusion to support 
counterterrorism efforts, air and maritime security training, and 
logistics.
    Our negotiations to date have focused on the possible mission sets 
to support the ISF in these and other areas. Any post-2011 U.S. forces 
presence upon which the United States and Iraq might ultimately agree 
would flow from the requirements necessary to support training and 
related mission sets.
    Again, there are no final decisions--nor reached any agreement with 
the Iraqis--about a post-2011 U.S. forces presence in Iraq.

                           RESERVE COMPONENT

    137. Senator Ayotte. Dr. Carter, our Nation must reduce Federal 
spending, and defense has a role. However, in the coming months and 
years, we must avoid defense cuts that endanger our military readiness 
and shortchange the Guard and Reserve. General Dempsey, Chairman of the 
Joint Chiefs of Staff, recently stated that the future fiscal 
environment will present significant challenges in preserving the 
readiness gains of the Reserve component. General Dempsey also stated 
that, ``the Reserve component of our Armed Forces has transformed from 
an exclusively Strategic Reserve to one that also provides operational, 
full-spectrum capabilities to the Nation. Repeated combat deployments, 
as well as peacekeeping, humanitarian relief, and Homeland defense 
missions, have produced a Reserve component far more operationally 
capable and experienced than any time in our Nation's history.'' Do you 
believe it would not be in the Nation's best interests to return the 
National Guard to strictly a Strategic Reserve?
    Dr. Carter. No, I do not believe that returning the National Guard 
to strictly a strategic Reserve is the correct solution or in the best 
interests of the Nation. I understand that the ``force mix'' of 
Strategic versus Operational Reserve component forces as well as the 
optimal AC/RC mix for certain capabilities are under review. I will 
ensure that the Department continues this vital work in order to ensure 
it can meet the demands of the National Military Strategy in a fiscally 
responsible manner.

    138. Senator Ayotte. Dr. Carter, how do you recommend we maintain 
the readiness of the Reserve component in a period of fiscal restraint?
    Dr. Carter. While I do not have specific recommendations at this 
time, I recognize that the consistent operational experience the 
Reserve components have gained over the last decade has significantly 
increased their readiness and confirmed that they are an integral part 
of the Total Force. It is my opinion that in order to reduce stress on 
the overall force, maintain an All-Volunteer Force, and leverage the 
skills and experience resident in the Guard and Reserve, their 
continued contribution in the future will be critical. These 
contributions--planned, periodic utilization of the Reserve component 
in missions for which they are best suited--often have the added 
benefit of maintaining their readiness. Additionally, it will be my 
goal to make the most efficient use of the Total Force. The Reserve 
component is an experienced and well-trained element of that force, 
providing value in many mission areas by maintaining capability and 
capacity at lesser cost.

                       PORTSMOUTH NAVAL SHIPYARD

    139. Senator Ayotte. Dr. Carter, the Portsmouth Naval Shipyard 
(PNSY) is an essential part of our Nation's naval readiness. PSNY 
conducts nuclear submarine maintenance on the Los Angeles-class and 
Virginia-class submarines. In fact, PNSY is currently conducting the 
first-in-the-Navy Virginia-class maintenance availability on the USS 
Virginia. A recent GAO study found that DOD has a backlog of over $3 
billion and at PNSY alone totaling over $500 million which impacts 
readiness, efficiency, and the health and safety of our sailors and 
workforce. If confirmed, do you commit to working to address this 
modernization backlog at this and other important shipyards?
    Dr. Carter. I am committed to investing in the Naval Shipyard 
infrastructure through Sustainment, Restoration and Modernization, and 
MILCON as part of a risk-balanced, fiscally constrained Navy 
infrastructure portfolio.
    Shipyard projects are evaluated and prioritized with all other Navy 
infrastructure projects to best enable warfighting and Joint 
capabilities, minimize the decline of mission-essential and quality of 
life infrastructure, and optimize warfare enterprise outputs and 
quality of service.
    Section 2476 of title 10, U.S. Code, requires that the Navy invest 
at least 6 percent of the average combined workload funded at all Navy 
depots for the preceding 5 years. The Navy spent 9.5 percent, 9.9 
percent, and 15.6 percent of these funds on shipyard recapitalization 
in fiscal year 2008-fiscal year 2010, respectively, and is in the 
process of investing 11.1 percent in fiscal year 2011.
    In fiscal year 2010, the Navy executed eight Operations and 
Maintenance (Sustainment and Restoration and Modernization) special 
projects at PNSY with a total value of $40.9 million. In fiscal year 
2011, the Navy planned additional special projects, valued at $17 
million, to repair and enable certification of Dry Dock #1. In fiscal 
year 2012, the Navy plans to invest $100.3 million in four energy 
special projects at PNSY.

                     PEASE AIR NATIONAL GUARD BASE

    140. Senator Ayotte. Dr. Carter, Pease Air National Guard Base in 
New Hampshire is a key base for Air Force refueling tankers. If DOD 
uses transparent and objective basing criteria for its KC-46A basing 
decisions, I am confident that Pease will continue to be a key 
strategic refueling base far into the future. Pease is the closest 
airbase to the operational and training refueling tracks, which will 
result in significant cost savings over the KC-46A's decades of 
service. The aerial refueling wing also has a unique Active Duty 
association that results in a very high aircraft utilization rate. The 
basing decision will be heavily scrutinized, so it is important that 
the process is objective and transparent. As Deputy Secretary of 
Defense, do you agree to work to ensure that the process for basing 
decisions for the KC-46A is objective and transparent?
    Dr. Carter. Yes. The Air Force is using its Strategic Basing 
Process to determine future locations for the KC-46A.

                          U.S. NAVAL SUPREMACY

    141. Senator Ayotte. Dr. Carter, the U.S. Navy has the fewest 
number of ships since America's entrance into World War I. Yet the Navy 
is being tasked with arguably more responsibilities than ever before. 
Our fleet is undoubtedly the finest ever put to the seas, but it is 
said that quantity has a quality all of its own. Security in Asia and 
around the world would increasingly rely on the U.S. maintaining naval 
supremacy. Since shipbuilding is one of the largest DOD expenditures, I 
worry that DOD will be tempted to cut our Nation's shipbuilding 
program. As a member of the Seapower Subcommittee, I would like to 
know, how important it is in your mind that the United States maintains 
naval supremacy?
    Dr. Carter. There is no question that this country relies upon 
continued naval supremacy, and I am firmly committed to maintaining it.

    142. Senator Ayotte. Dr. Carter, what ship-count is needed to 
accomplish naval supremacy?
    Dr. Carter. Ship count alone does not ultimately provide the proper 
mix of capabilities necessary to achieve naval supremacy across a wide 
range of possible contingencies. I believe procuring and maintaining 
the right mix of capabilities in our battle forces is what gives our 
Nation naval supremacy. The Department is committed to maintaining 
naval supremacy, but, as Secretary Panetta has stated, all areas of the 
budget are currently on the table in the budget review.

    143. Senator Ayotte. Dr. Carter, the Navy has called the 313-ship 
requirement a floor. In terms of ships in the Navy, based on strategy, 
rather than budget exercises, is there a floor you would not go below? 
If so, what is it?
    Dr. Carter. The number of ships, while important, is less important 
than having in the fleet the proper mix of those critical capabilities 
necessary to defeat adversaries. I believe the Department needs to 
strategically prioritize its battle force mix consistent with ensuring 
it is a ready and agile battle force that is in balance with the other 
armed forces needed to maintain American national security.

                              EFFICIENCIES

    144. Senator Ayotte. Dr. Carter, after a series of hearings Senator 
McCaskill and I conducted earlier this year on efficiencies and 
financial management with DOD, it is not apparent that DOD is placing 
sufficient emphasis on eliminating non-essential spending. In an 
unprecedented time of budget deficits and skyrocketing debt, we have 
repeatedly called for DOD to rein in wasteful or unnecessary spending 
across the board. Yet, DOD continues to notify us of new programs and 
new projects to fund with savings they have accumulated as opposed to 
returning those savings to American taxpayers. As an example, a recent 
decision by the Air Force illustrates the conflict we see between 
statements by the Secretary of Defense and the actions of the Military 
Departments to continue to fund requirements that are not absolutely 
essential to their core missions and operations.
    In November 2010, we received a notification from the Air Force of 
their intent to transfer $28 million from operations and maintenance 
accounts in order to construct a student activities center at Fort Sam 
Houston, Texas, in support of a training mission consolidation directed 
by the 2005 Base Realignment and Closure (BRAC) round. This facility is 
intended to support community and recreational activities, student 
processing, commander's calls, and graduation activities. After 
extensive meetings and a visit by our staffs to Fort Sam Houston, this 
committee concluded that the $589 million BRAC plan implemented by DOD 
for this decision was adequate, and that an additional construction 
project to build a student center funded through BRAC appropriations 
was not essential to the successful completion of the BRAC decision by 
September 15, 2011. In a letter to the Secretary of the Air Force dated 
April 15, 2011, we provided this position, which is consistent with our 
intent to take action when DOD spending may not be essential or 
efficient in these tough fiscal times.
    On June 1, 2011, we received a reply from the Air Force that 
indicated their intent to carry out the project, despite our 
objections. We immediately wrote the Secretary of Defense asking for 
his personal review of this decision to determine whether it is 
consistent with the current efforts of DOD. While we are still awaiting 
an answer, we were notified last week that the Air Force has awarded 
the contract to construct the student center. This disregard for the 
spending concerns of this committee is unacceptable. Do you condone the 
decision by the Air Force?
    Dr. Carter. At time of the hearing, the Department had not yet 
completed its response to Congress. On October 4, 2011, the Deputy 
Under Secretary of Defense for Installations and Environment sent a 
letter to you and Senator McCaskill affirming the Air Force decision to 
build the student activity center. The Air Force's decision to spend 
$28 million from available resources within the BRAC account is 
necessary and therefore, appropriate, because it supports the 
significantly increased population of enlisted medical trainees at this 
location. For example, the student activity center will provide space 
for student processing (averaging 400 students weekly) and an academic 
support forum large enough for commander's calls and graduation 
activities. This project provides our front-line medics needed 
functionality overlooked in the initial planning for this BRAC 
recommendation. As such, the student activity center is an example of 
how we used the flexibility of the BRAC account to make appropriate 
adjustments as we approached the end of the BRAC implementation period.

    145. Senator Ayotte. Dr. Carter, if confirmed, what would you do to 
ensure the members of congressional defense committees are adequately 
consulted about concerns formally raised to DOD before spending 
taxpayers' funds?
    Dr. Carter. I will make every effort to work with Congress to 
address your concerns.

    146. Senator Ayotte. Dr. Carter, if confirmed, is a recreation 
center the type of priority you will continue to support as a critical 
new spending item?
    Dr. Carter. In light of the current funding climate, the Department 
must ensure that the highest priority needs are met. I will be diligent 
in finding and eliminating wasteful spending. It is also important that 
the United States continues to take care of the troops and their 
families in order to sustain our high quality All-Volunteer Force.

    147. Senator Ayotte. Dr. Carter, what is DOD doing exactly to rein 
in unnecessary spending as we approach the end of the fiscal year?
    Dr. Carter. All echelons of the enterprise must be alert to any 
unnecessary, wasteful spending. There is a legal limitation to spending 
more than 20 percent of an appropriation in the last 2 months of a 
fiscal year. It must be noted that in recent years the Department faced 
persistent continuing resolutions and late enactment of supplemental 
appropriations which have the effect of delaying contractual actions 
until late in a fiscal year.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

                       AIR FORCE CENTRAL COMMAND

    148. Senator Graham. Dr. Carter, is the U.S. Air Force Central 
Command (AFCENT) creating accompanied tours in the CENTCOM Area of 
Responsibility (AOR)? If so, how many families does the Air Force plan 
to move from AFCENT to the CENTCOM AOR?
    Dr. Carter. DODI 1315.18, Procedures for Military Personnel 
Assignments, and the Joint Travel Regulation (JTR), established Qatar 
as a 24-month accompanied and 12-month unaccompanied tour. Four 
families are slated to move to Al Udeid, Qatar, in 2011 for a 24-month 
accompanied tour. The current plan is to increase the number of 
families by 12 per year for the next 5 years for a total of 60 families 
by the end of fiscal year 2015.

    149. Senator Graham. Dr. Carter, what is the timeframe for these 
moves?
    Dr. Carter. One family was in place July 2011, three more families 
will be in place fall 2011. The current plan is to increase the number 
of families by 12 per year for 5 years for a total of 60 families by 
the end of fiscal year 2015.

    150. Senator Graham. Dr. Carter, does AFCENT intend to eliminate or 
transfer any positions from Shaw AFB between now and October 2012? If 
so, what is the reasoning behind the elimination or transfer?
    Dr. Carter. To meet the OSD direction to target civilian manpower 
billets at fiscal year 2010 levels, the Air Force is conducting a 
comprehensive strategic review to increase efficiency, reduce overhead, 
and eliminate redundancy while preserving or growing in critical 
mission areas. As a result of this review, five AFCENT civilian billets 
will be eliminated at Shaw AFB. Reductions were due to efficiencies in 
reach-back support for Eskan Village (two billets) and reductions in 
staff support to AFCENT (three billets). The Air Force continues to 
develop enterprise-wide solutions to increase efficiency and remain 
within fiscal year 2012 civilian pay budget and therefore further 
reductions are possible. The Air Force will finish the review in mid-
December and will notify Congress of the results in late January 2012.

    151. Senator Graham. Dr. Carter, are any such positions slated to 
be transferred to the CENTCOM AOR?
    Dr. Carter. There are currently no plans to transfer any positions 
affected by DOD's direction to limit each military Service's civilian 
end strength to levels in effect at the end of fiscal year 2010.

    152. Senator Graham. Dr. Carter, if the CENTCOM AOR is sufficiently 
stable to allow families to reside there does this signify that the 
AFCENT Commander's presence is no longer needed in the region? If so, 
do the Commander's ongoing obligations at Shaw AFB now require that he 
move back?
    Dr. Carter. The decision to initially move the Commander, U.S. Air 
Force Central (COMUSAFCENT) to reside in the CENTCOM AOR was made by 
the Chief of Staff of the Air Force (CSAF) based on the U.S.'s vital 
national interests in the region and the desire to continue building 
robust partnerships in this key area of the world. The decision to keep 
COMUSAFCENT assigned within the AOR will be driven by the current 
operating environment and relationships within the AOR. At some point 
in the future DOD could envision the Deputy COMUSAFCENT being assigned 
in the AOR with his or her family while the Commander resides at Shaw 
AFB. Ultimately, however, the CSAF will look at all the key factors in 
making the decision if or when to return the Commander's position back 
to Shaw.

    153. Senator Graham. Dr. Carter, if the AFCENT Commander moves his 
family to the AOR, does this change the promise by the Air Force to 
return the AFCENT Commander to Shaw AFB once hostilities cease in the 
CENTCOM AOR?
    Dr. Carter. The Chief of Staff of the Air Force's decision to keep 
COMUSAFCENT assigned within the AOR will be driven by the current 
operating environment and relationships within the AOR. Whether the 
COMUSAFCENT moves his family to the AOR will not affect that decision.

    154. Senator Graham. Dr. Carter, with privatized housing now 
beginning at Shaw AFB, will new housing be built for the AFCENT 
Commander, as is being done for the AFCENT Commander?
    Dr. Carter. Yes. The project provides for a new home for both the 
AFCENT and the Army Central Command commanders. Five general officer 
homes will be constructed at Shaw AFB, SC, as part of housing 
privatization. The Southern Group Housing Privatization project which 
includes Shaw AFB, SC; Charleston AFB, SC; Arnold AFB, TN; and Keesler 
AFB, MS, was awarded to Forest City Southern Group, LLC on 30 September 
2011. The project owner started management operations the same day and 
has received authorization to commence construction from the Air Force.

    155. Senator Graham. Dr. Carter, unlike Naval Central Command 
(NAVCENT) Headquarters (HQ) the current AFCENT HQ location in the AOR 
is not controlled by the United States. Will the lack of U.S. control 
impact the security, support, or quality of life structure for family 
members who will be without access to a U.S. base?
    Dr. Carter. The safety of our Air Force members and their families 
is our number one priority. A prerequisite to Commander, CENTCOM, 
approval of the AFCENT plan was assurance that our families would be 
able to enjoy similar levels of safety and security afforded to ARCENT 
families by living in the same housing communities managed under DOS 
Housing Pool that satisfy CENTCOM force protection requirements. 
According to the DOS (http://travel.state.gov/travel/cis--pa--tw/cis/
cis--1003.html#crime), violence in Qatar is ``rare'' and a ``large 
police presence is deployed throughout the country''. Reports of petty 
theft, credit card theft, and theft of unsecured items (e.g., cash, 
jewelry, electronics, etc.) in hotel rooms or other unattended public 
places are also noted, however, these crimes are not uncommon in the 
U.S. and awareness and vigilance are recommended.
    Owing to the availability, proximity, and quality of resources 
afforded to Air Force family members within the greater Doha region, we 
don't believe limited access or lack of robust, traditional family 
support resources at Al Udeid will degrade quality of life for 
servicemembers or their dependents while living in Doha, Qatar. The 
AFCENT command sponsorship program is an extension of a pre-existing 
ARCENT program, partnering with the U.S. Embassy, Qatar, and placing 
Air Force family members into secure, select, western-style DOS Housing 
Pool quarters. Neighborhoods are filled with ARCENT families, U.S. 
citizens, allies, and a wide variety of professionals serving in 
diverse capacities including academics, doctors, and corporate 
executives.
    Doha is a very modern Middle Eastern city with many western 
amenities including instantly-recognizable, western-style restaurants, 
retailers, and grocery stores that offer international cuisines. For 
families with K-12 children, there are several education options 
including enrollment in the American School of Doha, a world renowned, 
fully-accredited institution. Families with dependents in college can 
choose from branch campuses of internationally-recognized universities 
including Texas A&M, Carnegie Mellon, and Northwestern. Modern medical 
care is available and covered by TRICARE. Finally, the Qatari Ministry 
of Defense recently approved Air Force military family members access 
to Al Udeid Air Base, including access to limited morale, welfare, and 
recreation services, chaplain services, and fitness center resources.

    156. Senator Graham. Dr. Carter, what is cost-per-year required to 
support and protect families on accompanied tours to the CENTCOM AOR?
    Dr. Carter. Bringing up to 60 families to the CENTCOM AOR by fiscal 
year 2015 increases the support footprint. The Department estimates 
that the additional net cost to support and protect families in the 
CENTCOM AOR will be approximately $6 million per year. This cost 
includes personnel entitlement and related costs, schooling, housing, 
additional civilian positions to provide support to families, and 
associated force protection costs. This figure also takes into account 
partially offsetting expenses because families assigned to the CENTCOM 
AOR will no longer receive Basic Allowance for Housing or Family 
Separation Allowance.
    The report of the AFCENT ``Families At Al Udeid'' (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="41070100140003">[email&#160;protected]</a>) Working 
Group, which met at regular intervals from August 2010 through July 
2011, included the steps taken to assign the initial set of command-
sponsored families in summer 2011. The report also identified the steps 
required in future years to achieve the COMUSAFCENT's intent to 
increase the number of command-sponsored families in Qatar by 
approximately 12 each year, to a total of about 60 families by 2015.

    157. Senator Graham. Dr. Carter, who initiated moving the families 
from Shaw AFB to the CENTCOM AOR (e.g., AFCENT, CENTCOM, Air Force, DOD 
and/or DOS)?
    Dr. Carter. The request to expand on the U.S. Army Central program 
was initiated by then-Lieutenant General Gilmary M. Hostage, former 
Commander, U.S. Air Forces Central, in coordination with, and approval 
from, General James N. Mattis, Commander, CENTCOM, and Dr. Clifford L. 
Stanley, Deputy Under Secretary of Defense (Personnel & Resources).
    A small percentage of Air Force members are stationed, 
unaccompanied, at Al Udeid Air Base (AB), Qatar via permanent change of 
station orders for 1 year. Tour lengths will be extended to 2 years for 
a targeted group of individuals who choose to bring their families--
there is no move of position authorizations from Shaw AFB to Al Udeid 
AB. The number of accompanied tours will increase and the number of 
unaccompanied decrease to maintain the same number of billets at Shaw 
AFB and Al Udeid AB.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                       F-35 JOINT STRIKE FIGHTER

    158. Senator Cornyn. Dr. Carter, in your responses to advance 
policy questions, you made the following statements: ``Based on current 
and projected threats, I believe it is critical that we transition to a 
fifth generation capability across the Services while maintaining 
sufficient legacy inventory capacity to prevail in current and near-
term conflicts'' and ``we need JSF to deal with advanced fighters and 
surface-to-air missiles worldwide, especially in the stressing 
electronic warfare environments of the future.'' Can you elaborate on 
these statements?
    Dr. Carter. I have not wavered in my firm belief that JSF is the 
centerpiece of the Department's tactical air forces. Its unprecedented 
combination of stealth, sensing, and firepower will give American 
forces a crucial edge against advanced threats. Thus, as a matter of 
utmost importance, DOD continued to actively manage the JSF program as 
it proceeds through development, balancing the capability benefits with 
the concurrency risks-within increasingly tight resourcing constraints.

    159. Senator Cornyn. Dr. Carter, some F-35 critics have called for 
our military's planned buy of F-35s to be downsized from the full 2,443 
requirement, resulting in a silver bullet fleet of far fewer F-35s, 
with the rest of the requirement to be filled by fourth generation 
aircraft. What concerns does this scenario raise for you?
    Dr. Carter. The Department is currently developing the fiscal year 
2013 budget and thus is still deliberating investment strategies with 
respect to specific programs. I understand that the Department must 
maintain a tactical air portfolio that meets the near and longer-term 
requirements of the warfighter within the bounds of affordability. 
JSF's impressive capabilities make it a key focus of our attention as 
the Department examines the appropriate size and mix of fourth 
generation and fifth generation fighter attack aircraft inventories 
based on strategic priorities, threat assessments, concepts of 
operations, and force structure requirements.

    160. Senator Cornyn. Dr. Carter, what would the effect on our 
warfighters be, especially in the face of a large-scale military 
conflict in which they were asked to operate for weeks or months on end 
in highly contested airspace?
    Dr. Carter. Sustained, large-scale combat operations are inherently 
stressful, but the key to lowering risk in any type of conflict is to 
modernize and support our forces with the right capabilities and 
adequate capacity. The Department is dedicated to that task in building 
the fiscal year 2013 President's budget.

    161. Senator Cornyn. Dr. Carter, DOD recently provided Congress 
with the annual report on Communist China's military modernization and 
expansion, in which it warned us that, `` . . . China's military has 
benefited from robust investment in modern hardware and technology. 
Many modern systems have reached maturity and others will become 
operational in the next few years.'' One of those investments includes 
China's new J-20 stealth fighter unveiled earlier this year. More 
recently, Russia unveiled its own stealth fighter called the T-50 at 
the Moscow Air Show in August. Speaking at the air show, the Russian 
Federation Air Force Commander in Chief said that series production of 
this fifth generation aircraft could begin as early as 2014. 
Additionally, the Chinese, North Koreans, and Iranians are fielding 
sophisticated SAMs that threaten our fleet of fourth generation 
aircraft. In your written testimony to this committee in May, you 
stated that ``the F-35 will form the backbone of U.S. air combat 
superiority for generations to come.'' Would you agree that in order to 
maintain air combat superiority for generations to come, the United 
States needs to successfully field a stealthy, multi-role fighter such 
as the F-35 in sufficient quantities?
    Dr. Carter. Tactical Air (TACAIR) modernization is a critical 
component in the Department's ability to meet our national security 
requirements. The Department's goal is to transition the TACAIR fleet 
to primarily a fifth generation force as efficiently as we can. On June 
1, 2010, I certified to Congress that the F-35 program is essential to 
national security. That certification, following a thorough Nunn-
McCurdy review, highlighted the continued need for the F-35 program. 
However, the F-35 is still under development and the Department has a 
number of aging legacy aircraft, a portion of which may need replacing 
before the F-35 is ready for deployment. It is also vitally important 
that DOD maintains a TACAIR force structure that can fight the wars the 
U.S. military is currently involved in and the threats it may confront 
in the near future.

    162. Senator Cornyn. Dr. Carter, in your opinion, what does 
development by our potential adversaries of fifth generation fighters 
and sophisticated SAMs mean for the U.S. inventory of fourth generation 
aircraft?
    Dr. Carter. The Department is investing in F-35 and F-22 to address 
high end threats. While the high-end scenarios are stressing, the F-35 
brings an unprecedented combination of stealth, sensing, and firepower, 
complimented by the F-22's unmatched survivability and lethality in the 
air-to-air arena. However, pending full rate production of JSF, the 
Department must consider prudent investments to maintain our inventory 
capacity, which in the 2012 President's Budget involved expenditure in 
new FA-18E/Fs and legacy attack fighter aircraft modernization.

    163. Senator Cornyn. Dr. Carter, would you agree that these threats 
are reason to procure more fifth generation aircraft and phase out 
procurement of fourth generation aircraft?
    Dr. Carter. The Department needs the JSF to deal with advanced 
fighters and surface-to-air missiles world-wide, especially in the 
stressing electronic warfare environments of the future, and it is 
committed to making responsible investment decisions relative to the F-
35 that accurately reflect the status of the program, the Services' 
requirements, and the larger Department priorities.

    164. Senator Cornyn. Dr. Carter, in your opinion, what is the 
survivability of a fourth generation fighter, such as the latest 
versions of the F/A-18, against a Russian T-50, Chinese J-20, and 
advanced SAMs?
    Dr. Carter. The F/A-18E/F is a highly capable aircraft designed to 
meet and defeat today's threats with growth potential for the future. 
It operates at higher risk in a war fight compared to the JSF but ably 
conducts the full range of strike fighter missions. F/A-18E/F will be a 
complementary platform on the Nation's carrier decks with the F-35C 
into the 2030s and will meet current and projected requirements, with 
planned investments in the fiscal years 2012-2016 FYDP and beyond. 
Investments in the F/A-18E/F include upgraded avionics, sensors, and 
weapons such as Infra-Red Search and Track, AIM-9X Block II, Integrated 
Defensive Electronic Countermeasures Block 2, and Active Electronically 
Scanned Array electronic protection upgrades, which will ensure 
relevancy against many emerging and future threats.

                SHORT TAKEOFF VERTICAL LANDING AIRCRAFT

    165. Senator Cornyn. Dr. Carter, the Marine Corps has a validated 
and pressing need for a short takeoff, vertical landing (STOVL) 
aircraft to replace its famous AV-8B Harrier jump-jets. During the 
conflict in Libya, Marine Corps Harriers operated with great combat 
effectiveness from the USS Kearsarge, approximately 150 miles off the 
coast of Libya. Their flight time of 25 minutes from ship to target was 
just a fraction of the 440-mile, 75-minute transit that conventional 
U.S. tactical aircraft made from the nearest base in Italy. 
Additionally, due to the short transit time, Marine Corps combat 
aviators were able to return to the ship, load more weapons, and fly a 
second mission that same day. It seems pretty clear that the STOVL 
capability is a combat multiplier. Do you agree that this unique 
capability greatly increases the ability of our military units to 
execute their missions?
    Dr. Carter. STOVL fixed-wing aircraft, operating from forward 
deployed amphibious ships and expeditionary bases, provide important 
operational flexibility. With regards to the Libya operation, the 
presence of the USS Kearsarge and its air combat element allowed the 
United States to provide tactical aircraft capabilities from the sea 
without changing the disposition of aircraft carriers deployed 
elsewhere. While our NATO allies operated from bases 440 miles from 
Libya, most tactical U.S. strike aircraft operated from Aviano Airbase, 
1,045 miles from Benghazi. The AV-8B Harriers, however, were based as 
close as 120 miles from Benghazi, allowing them to operate without 
aerial refueling and generate multiple sorties per aircraft per day. 
This ability to operate from such close proximity to the Libyan coast 
made the Harrier highly effective in attacking fleeting targets of 
Qaddafi's highly mobile forces.

    166. Senator Cornyn. Dr. Carter, the Harrier, due to its STOVL 
capability, is the only U.S. tactical jet aircraft capable of operating 
from the Navy's fleet of amphibious assault ships, until the F-35B 
fleet comes online. It seems that, if the F-35B variant is not fielded 
in its intended numbers, the United States will have failed to leverage 
the enormous capability provided by amphibious assault ships and also 
the huge investment that U.S. taxpayers have made in these ships. Do 
you agree? How can we avoid such an undesirable outcome?
    Dr. Carter. The F-35B was designed to operate off our current 
Landing Helicopter Deck (LHD) class large deck amphibious assault 
ships, and is currently conducting sea trials aboard the USS Wasp LHD. 
The Department's future America Class Landing Helicopter Assault LHA(R) 
class vessels are specifically designed to operate F-35Bs, along with 
the full contingent of Marine Corps assault support rotorcraft. The 
integration of F-35B and F-35C aircraft into our strike groups will 
provide multi-role, fifth-generation capabilities across a range of 
combat operations to deter potential adversaries and enable future Navy 
and Marine Corps power projection. DOD remains strongly committed to 
both the F-35B and F-35C JSF.

                            F-35 CONCURRENCY

    167. Senator Cornyn. Dr. Carter, the JSF program was designed with 
a substantial amount of concurrency built in by DOD. My understanding 
is that concurrency is the deliberate overlap of the development/
testing phase and the production phase of a program. By building in 
concurrency, DOD decided to start buying production models of the F-35 
before development and testing of the aircraft was completed. As I 
understand it, the goal of building in concurrency would be to get the 
F-35 to the warfighter faster, but at the risk of creating cost 
overruns during the early stages of production. Can you comment on why 
DOD built concurrency into the JSF program?
    Dr. Carter. The Department established a concurrent JSF program 
with the goal of providing the Department with incremental JSF 
capability in order to meet operational requirements and address strike 
fighter shortfall forecasts. Department leadership accepted a level of 
concurrency that it felt best balanced the risks of concurrent 
development and production against the need to meet the Services IOC 
requirements. In the time since this initial decision was made, program 
delays have substantially increased the level of concurrency and have 
made it necessary for the Services to delay their IOC dates and extend 
their legacy fleets. The Department will continue to review concurrency 
in the program to ensure that it is managed appropriately.

    168. Senator Cornyn. Dr. Carter, how has that affected the 
program's costs?
    Dr. Carter. Concurrency has increased procurement costs. Aircraft 
procured prior to the completion of the development and testing phase 
require modifications to incorporate changes discovered during testing 
and those costs are not insignificant. However, those increases have to 
be taken in the context that accepting concurrency costs allows for 
earlier delivery of the aircraft.

    169. Senator Cornyn. Dr. Carter, has concurrency led to a faster 
ramp-up to full-rate production?
    Dr. Carter. Yes. Because the program began Low-Rate Initial 
Production (LRIP) during development, full-rate production can be 
achieved sooner than if LRIP was delayed until the completion of the 
development and test phase.

    170. Senator Cornyn. Dr. Carter, my understanding is that the total 
cost overruns for LRIP Lots 1 through 3, which include both performance 
and concurrency overruns, was $1.054 billion, of which the Government's 
share was $771 million and industry's (both Lockheed Martin and United 
Technologies Corporation) was $283 million. DOD built concurrency into 
the JSF program. Would you agree that a significant portion of these 
cost overruns is a result of that concurrency?
    Dr. Carter. No. The cost overruns on the LRIP 1-3 contracts are not 
primarily a result of the concurrent aspects of the program. The good 
bulk of cost overruns are attributable to additional labor hours 
required for wing and mate assembly on the production line. It took the 
contractor longer to manufacture the early lots of aircraft than was 
predicted and negotiated for. Since these were Cost Plus Incentive Fee 
contracts, negotiated in 2007, 2008, and 2009, the Department was 
responsible for the cost increases. For this reason, in 2010 the 
Department transitioned to a Fixed-Price Incentive Firm contract for 
LRIP 4. In both the LRIP 4 contract and the LRIP 5 contract currently 
being negotiated, the Government will be protected against this type of 
open ended overrun. The costs due to concurrency can be predicted, 
based on the expected change to the design, and negotiated into these 
Fixed-Price type contracts. Additionally, an equitable sharing 
arrangement for overruns, or underruns, as well as a ceiling price is 
included in the costs to cap the Government's liability.

                          TAIWAN SELF DEFENSE

    171. Senator Cornyn. Dr. Carter, under the Taiwan Relations Act 
(TRA), the United States is statutorily obligated to make available to 
Taiwan such defense articles and defense services ``as may be necessary 
to enable Taiwan to maintain a sufficient self-defense capability.'' 
Yet DOD's 2011 report, Military and Security Developments Involving the 
People's Republic of China, concludes that the ``balance of cross-
Strait military forces and capabilities continues to shift in the 
mainland's favor.'' Given this predictable shift in China's favor, do 
you assess that the United States has been upholding our obligations 
under the TRA?
    Dr. Carter. Yes. The balance of military forces and defense 
capabilities was expected to shift, and indeed it did. The Department 
is monitoring this shift very closely and discussed these changes and 
their effects with Taiwan. It is not possible for Taiwan to match 
China's military expansion, nor would it be desirable for Taiwan to try 
to do so. Instead, Taiwan must acquire and deploy advanced and 
asymmetric military capabilities to defend itself. To offset the shift 
in military balance we are working with Taiwan to help it develop these 
capabilities and the appropriate military force that will deter PRC 
aggression and, should deterrence fail, provide the Taiwan military the 
capability to defend the island for an extended time.

    172. Senator Cornyn. Dr. Carter, in your responses to advance 
policy questions, you stated that China's ``near-term focus appears to 
be on preparing for potential contingencies involving Taiwan, including 
possible U.S. military intervention.'' Since 2006, Taiwan has made 
repeated requests to purchase new F-16C/D multirole combat aircraft 
from the United States to augment their air force, which is becoming 
increasingly obsolete. In your opinion, does Taiwan need these 66 new 
F-16C/D fighters in order to maintain adequate self-defense 
capabilities?
    Dr. Carter. The Obama administration is firmly committed to the 
one-China policy, which is based on the three joint U.S.-China 
communiques and the TRA. This is a policy that endured across eight 
administrations, transcended political parties, and served as a central 
element of our approach to Asia for more than three decades. The 
administration's strong commitment to the TRA is evident in its 
actions, which include the September 21 notification to Congress of our 
intent to sell Taiwan $5.85 billion worth of new defense articles and 
services--including an upgrade package for Taiwan's 145 F-16 A/B 
fighters; spare parts for its F-16, F-5, and C-130 aircraft; and 
training for F-16 pilots at Luke AFB in Arizona.
    This decision follows the January 29, 2010 decision to sell Taiwan 
$6.4 billion in defensive arms, including 60 UH-60M Blackhawk 
helicopters, Patriot PAC-III firing units and missiles (three firing 
units, one training unit, and 114 missiles), Harpoon missiles, two 
Osprey-class mine hunters, and follow-on support for command and 
control systems. In addition, in August 2011, the Obama administration 
submitted a $310 million direct commercial sales notification to 
Congress for the approval of export licenses in support of radar 
equipment for Taiwan Indigenous Defense Fighters and Hughes air defense 
radars. These collective sales of more than $12.5 billion in arms to 
Taiwan are an important indication of our commitment to Taiwan's 
defense.
    The F-16 retrofit reflects a smart defense policy that provides 
real and immediate contributions to Taiwan's security. The retrofitted 
F-16 A/Bs will provide a more reliable, survivable, and capable 
aircraft--comparable to the F-16 C/D, but at a lower cost--and Taiwan 
will have 145 of them.

    173. Senator Cornyn. Dr. Carter, what risks would the United States 
face if Taiwan is unable to protect itself in the future?
    Dr. Carter. A Taiwan that is unable to protect itself could lead to 
instability in Northeast Asia. A weak Taiwan would be less likely to 
continue cross-strait engagement with China if it could not resist 
coercion. The lack of dialogue would potentially result in 
misunderstandings across the Strait and coud escalate to crisis due to 
miscalculations. Additionally, China may be more likely to resort to 
force against Taiwan if the island lacks the means to resist coercion 
and deter aggression.
    Taiwan is a visible and important indicator of U.S. commitment to 
Asia. A Taiwan that is unable to defend itself undermines U.S. 
interests, and the failure to provide for Taiwan's defense could cast 
doubt on U.S. commitments to other friends and allies in the region. 
Maintaining the current balance of power in the region and across the 
Taiwan Strait promotes stability and discourages regional arms races 
from materializing.

                      DOD CHIEF MANAGEMENT OFFICER

    174. Senator Cornyn. Dr. Carter, section 904 of the National 
Defense Authorization Act for Fiscal Year 2008 designates the Deputy 
Secretary of Defense as the CMO of DOD. In this capacity, the Deputy 
Secretary is responsible for overseeing the synchronization, 
integration, and coordination of DOD business operations, ensuring 
effectiveness and efficiency--including in DOD's financial management 
practices. Arguably, past deputy secretaries have not spent the 
necessary time on performing the critical job of CMO, which has fallen 
well short of Congress' intent for the CMO function. Do you agree that 
now, more than ever, there is a pressing need for DOD to improve its 
overall business practices and financial management systems in order to 
maximize each and every dollar and serve as better stewards of 
taxpayers' funding?
    Dr. Carter. I believe that, particularly in light of the current 
need to rein in spending, in order to acquire with wisdom and care and 
to make the most of each and every one of the taxpayers' dollars 
entrusted to the Department, the oversight of the Department's business 
operations and its financial management practices could not be of 
greater importance.

    175. Senator Cornyn. Dr. Carter, are you fully committed to 
carrying out the important function of DOD CMO on a daily basis?
    Dr. Carter. Yes, I am thoroughly committed to carrying out the 
function of DOD CMO on a daily basis.

    176. Senator Cornyn. Dr. Carter, how much time do you anticipate 
dedicating to your responsibilities as CMO?
    Dr. Carter. I anticipate dedicating a significant amount of my time 
to my responsibilities as DOD's CMO.

                        LOOMING DOD BUDGET CUTS

    177. Senator Cornyn. Dr. Carter, in a speech earlier this year, 
former Secretary Gates stated that ``we must reject the traditional 
approach of applying across-the-board cuts, the simplest and most 
politically expedient approach both inside this building and outside of 
it. . . . It results in a hollowing-out of the force from a lack of 
proper training, maintenance, and equipment. We've been there before, 
in the 1970s and in the 1990s.'' What assurances can you give that you 
will make every effort to avoid a ``hollowing-out of the force'', as 
described by Secretary Gates?
    Dr. Carter. The Secretary made maintaining an extremely agile, 
deployable force one of his major priorities. I will use my position to 
ensure that adequate resources are programmed and budgeted in the 
readiness accounts in order to meet this priority. We all understand 
that this force will likely be smaller but will ensure that it is 
trained to be ready and deployable when called upon to do so.

    178. Senator Cornyn. Dr. Carter, given our experience in recent 
years in Iraq, Afghanistan, and elsewhere, can the United States afford 
to take another procurement holiday?
    Dr. Carter. Engaging in two simultaneous unconventional wars in 
Iraq and Afghanistan has demonstrated that our enemies do not look the 
same as they did in previous wars. This truth has changed the nature of 
our engagement and the nature of the systems required to properly equip 
our warfighters. Similarly, we cannot predict exactly what our enemies 
will look like in the future, and the defense acquisition system must 
be able to adapt. As we reduce budgets, we must take care to sustain 
the industrial base in ways that preserve the ability to equip our 
forces, as well as protect the future in ways that foster innovation, 
technical superiority, and essential intellectual capability.

    179. Senator Cornyn. Dr. Carter, what would doing so mean for our 
national security?
    Dr. Carter. A procurement ``holiday'' of sufficient magnitude could 
erode key sectors of the industrial base, which could in turn impair 
our ability to equip our warfighters adequately. It could also degrade 
key industrial capabilities necessary to sustain technical superiority.

                      DOD EFFICIENCIES INITIATIVES

    180. Senator Cornyn. Dr. Carter, it has been over a year since DOD 
launched its ambitious efficiencies initiative to spur savings. Can you 
provide specific examples where these initiatives had resulted in real 
dollar savings and efficiencies?
    Dr. Carter. Increasing competition is a main initiative to spur 
savings for the Department. Below is an example from each Military 
Department in which competition resulted in real dollar savings.
    In the Army, within the Joint Tactical Radio System (JTRS) 
portfolio, the Multifunctional Distribution Information System-Low 
Volume Terminal (MIDS-LVT) radio program is an example of how 
competition has resulted in cost savings. During the production phase 
of the MIDS-LVT program, competition has resulted in approximately 60 
percent cost savings. The initial production cost of the radio was $435 
thousand per unit and, through ongoing competition between the two 
approved vendor production sources, the cost per unit has steadily 
decreased to $181 thousand per unit. With over 2,600 MIDS-LVT units 
purchased to date, the program has achieved hundreds of millions of 
dollars in procurement savings through the successful MIDS-LVT 
competitive acquisition strategy.
    For the Air Force, the MQ-1 Predator organizational-level 
maintenance contract is a good example of how competition produced 
acquisition cost savings. The initial contract, issued in March 2005, 
was a sole source award to the Original Equipment Manufacturer (OEM), 
General Atomics Aeronautical Systems. This decision not to compete the 
organization-level maintenance contract was primarily driven by the 
lack of published technical orders. When those technical orders became 
available, the contract was recompeted a year ahead of schedule and 
awarded to Battle Space Flight Services, resulting in a savings of $102 
million. Because of increased and accelerated wartime demand, the Air 
Force is anticipating additional savings over the life of the contract. 
The ability to compete the requirement in the future will continue to 
enable cost savings.
    For the Department of Navy (DON), the most visible example is the 
Littoral Combat Ship (LCS) program. After receiving proposals from 
Lockheed Martin and Austal USA in early 2010 that were deemed 
unaffordable, the DON changed its acquisition strategy to an all-or-
nothing competitive contract award and encouraged the companies to 
establish leaner teaming arrangements. After proposals were submitted, 
the DON realized it could achieve competitive prices. In December 2010, 
Lockheed Martin and Austal USA were each awarded fixed-price incentive 
contracts for the design and construction of 10 ships from fiscal year 
2010 through fiscal year 2015. The benefits of competition, serial 
production, employment of mature technologies, design stability, fixed-
price contracting, commonality, and economies of scale contributed to a 
highly affordable ship construction program. The approach, self-
financed within the program budget by reinvesting a portion of the 
greater than $2 billion in total savings through the FYDP. The approach 
also enables the DON to efficiently produce the ships at an increased 
rate to meet operational requirements sooner.

    181. Senator Cornyn. Dr. Carter, recognizing that over 70 percent 
of weapons systems costs are borne in the sustainment vice the initial 
purchase, you have spurred the Services to focus their efforts at 
savings there. Can you provide specific examples where your efforts 
have brought increased competition and lower costs in the sustainment 
arena?
    Dr. Carter. Program Managers and Product Support Managers have been 
focused on sustainment solutions that affordably and effectively 
satisfy the Warfighter's requirements for the weapon system under their 
control. Part of the solution addressing the tenets reflected in the 
Better Buying Power initiative is performance-based, life-cycle product 
support (also known as Performance Based Logistics (PBL)).
    PBL strategies involve buying performance (as defined by the 
Military Services) rather than a traditional transactional support 
strategy. Inherent in PBL strategy are the overall reduction of 
financial and mission performance risk and the transfer of some of that 
risk from the Military Service to the PBL provider.
    Fixed-price, incentive-type contracts are central to effective PBL 
strategies with commercial activities. This approach is consistent with 
the ``Should Cost'' philosophy, which challenges programs to find 
specific ways to beat the existing cost projections reflected by the 
Independent Cost Estimate or program estimates. It specifically focuses 
on eliminating non-value added overhead and incentivizes the provider 
to improve their processes and product. It creates ``internal 
competition,'' as cost savings is in the organization's best interest, 
and it is also in the best interests of the warfighter and taxpayer.
    The Department instituted a PBL Awards program in 2005 to enhance 
PBL awareness and encourage PBL excellence. Three PBL award winners 
recognized this year by the Department for their success delivering 
sustainment in a more affordable and effective fashion are the Air 
Force Joint Stars (AF JSTAR), Apache Sensors, and Navy Tires program.
    The AF JSTAR program team delivered an average 96-percent mission-
effectiveness rate and $47 million in savings since contract inception. 
Apache Sensor PBL improved mean time between failure by 100 percent 
between July 2010 and the present, and reduced sustainment costs by $7 
million over the same period. The Navy Tire program has resulted in $46 
million in savings across the life of the contract and the elimination 
of Navy wholesale tire inventory, which freed up 280,000 cubic feet of 
storage space in the DLA and allowed for the reassignment of personnel 
to other work. Most importantly, warfighter support has been superb 
with 100 percent of all orders filled without a backorder in delivering 
more 289,000 tires worldwide.

    182. Senator Cornyn. Dr. Carter, Air Force leadership (Major 
General Fedder at a National Defense Industrial Association breakfast 
on September 7, 2011) has recognized that in the Air Force garnering 
savings in sustainment must be lead by focusing on aircraft engines. 
Given that over 85 percent of Air Force engine sustainment work is 
sole-sourced, what is OSD doing to help the Air Force spur competition 
in sustainment?
    Dr. Carter. A key factor necessary for competition is licensing of 
the data rights to maintenance manuals for continued sustainment. The 
Department is addressing this issue as part of the Better Buying Power 
Initiative for promoting real competition. Proper consideration given 
to acquiring technical data and the appropriate accompanying licenses 
in both initial acquisition and in recompetition ensures the Department 
has repair capability available through organic field and depot 
maintenance, commercial sources of repair, or a combination of both, 
with the focus of optimizing competition to reduce cost and provide 
best value.
                                 ______
                                 
    [The nomination reference of Hon. Ashton B. Carter 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 2, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Ashton B. Carter, of Massachusetts, to be Deputy Secretary of 
Defense, vice William J. Lynn III.
                                 ______
                                 
    [The biographical sketch of Hon. Ashton B. Carter, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
                                ------                                

           Resume of Career Service of Hon. Ashton B. Carter
Education:
        <bullet> Oxford University

                <bullet> 1976-1979
                <bullet> Ph.D., Theoretical Physics
                <bullet> Senior Scholar, St. John's College
                <bullet> Best Participant Prize, NATO Center for 
                Subnuclear Physics

        <bullet> University of Edinburgh

                <bullet> Spring 1975, no degree

        <bullet> Yale University

                <bullet> 1972-1976
                <bullet> B.A., summa cum laude
                <bullet> Honors in Medieval History
                <bullet> Honors in Physics
                <bullet> Phi Beta Kappa
                <bullet> Andrew D. White Essay Prize in European 
                History
Employment Record:
        <bullet> U.S. Department of Defense

                <bullet> Under Secretary of Defense for Acquisition, 
                Technology, and Logistics
                <bullet> 2009-present

        <bullet> Harvard University

                <bullet> Chair, International and Global Affairs 
                Faculty
                <bullet> John F. Kennedy School of Government
                <bullet> 2006-2009 (leave of absence 2009-2011)

        <bullet> Harvard University

                <bullet> Ford Foundation Professor of Science and 
                International Affairs
                <bullet> John F. Kennedy School of Government
                <bullet> 1996-2009

        <bullet> Preventive Defense Project, Harvard and Stanford 
        Universities

                <bullet> Co-Director (with William J. Perry)
                <bullet> 1997-2009

        <bullet> U.S. Department of State

                <bullet> Senior Advisor to the North Korea Policy 
                Review
                <bullet> 1998-2000

        <bullet> U.S. Department of Defense

                <bullet> Assistant Secretary of Defense for 
                International Security Policy
                <bullet> 1993-1996

        <bullet> Harvard University

                <bullet> Director, Center for Science and International 
                Affairs
                <bullet> 1990-1993

        <bullet> Harvard University

                <bullet> Professor, and Associate Director, Center for 
                Science and International Affairs
                <bullet> 1988-1990

        <bullet> Harvard University

                <bullet> Associate Professor
                <bullet> 1986-1990

        <bullet> Harvard University

                <bullet> Assistant Professor
                <bullet> 1984-1986

        <bullet> Massachusetts Institute of Technology

                <bullet> Research Fellow, Center for International 
                Studies
                <bullet> 1982-1984

        <bullet> U.S. Department of Defense

                <bullet> Program Analysis and Evaluation
                <bullet> 1981-1982

        <bullet> Office of Technology Assessment, U.S. Congress

                <bullet> International Security and Commerce Program
                <bullet> 1980-1981

        <bullet> Rockefeller University, New York

                <bullet> Research Associate
                <bullet> 1979-1980

        <bullet> Oxford University

                <bullet> Physics Instructor (``Tutor'' in the Oxford 
                system)
                <bullet> Quantum Mechanics and Relativity
                <bullet> 1977-1979

        <bullet> Brookhaven National Laboratory

                <bullet> Experimental Research Associate
                <bullet> 1976

        <bullet> Fermi National Accelerator Laboratory

                <bullet> Experimental Research Associate
                <bullet> 1975
Honors and Awards:
        <bullet> Defense Intelligence Medal, from the Defense 
        Intelligence Agency, April 1998.
        <bullet> Distinguished Public Service Medal, Department of 
        Defense (awarded three times) The highest award of the 
        Department of Defense, ``for distinguished public service as 
        Under Secretary of Defense for Acquisition, Technology & 
        Logistics'' from April 2009 to June 2011, and ``for 
        exceptionally distinguished service to the Nation as Assistant 
        Secretary of Defense for International Security Policy,'' July 
        1994 and December 1995.
        <bullet> Forum Award, American Physical Society, ``For his 
        clear and lucid exposition of the physics issues in the nuclear 
        arms race and his unique ability to combine his physics 
        background and good judgment to clarify the technical 
        parameters of these important public policy issues,'' 1988.
        <bullet> Ten Outstanding Young Americans, United States 
        Jaycees, 1987.
        <bullet> Rhodes Scholar, 1976
        <bullet> See above under ``Education.''

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Ashton B. 
Carter, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ashton Baldwin Carter (Ash Carter).

    2. Position to which nominated:
    Deputy Secretary of Defense.

    3. Date of nomination:
    August 2, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 24, 1954; Philadelphia, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Stephanie DeLeeuw Carter.

    7. Names and ages of children:
    William Ashton Carter, 22.
    Ava Clayton Carter, 19.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Abington High School, Abington, PA, 1968-1972, High School Diploma 
1972
    Yale University, New Haven, CT, 1972-1976, B.A. 1976
    University of Edinburgh, Edinburgh, Scotland, spring 1975, no 
degree
    Oxford University, Oxford, United Kingdom, 1976-1979, D. Phil., 
1979

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Under Secretary of Defense for Acquisition, Technology and 
Logistics, 2009-present; U.S. Department of Defense--Washington, DC
    Chair, International and Global Affairs faculty, 2006-2009 (on 
leave of absence 2009-2011); John F. Kennedy School of Government, 
Harvard University--Cambridge, MA
    Ford Foundation Professor of Science and International Affairs, 
1996-2009; John F. Kennedy School of Government, Harvard University--
Cambridge, MA
    Co-Director (with William J. Perry), Preventive Defense Project, 
1997-2009; Harvard and Stanford Universities--Cambridge, MA

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, White House Government Accountability and Transparency 
Board (2011-present)
    Chair, National Security Strategy and Policies Expert Working 
Group, Congressional Commission on the Strategic Posture of the United 
States, 2008-2009
    Co-Chair, Review Panel on Future Directions for DTRA (Defense 
Threat Reduction Agency) Missions and Capabilities To Combat Weapons of 
Mass Destruction, 2007-2008
    Member, International Security Advisory Board to the Secretary of 
State, 2006-2008
    Member National Academy of Sciences Committee on Science and 
Technology for Countering Terrorism, 2001-2003
    Member, National Missile Defense White Team, 1998-2009
    Member, Threat Reduction Advisory Committee, U.S. Department of 
Defense, 1998-2002
    Member, Defense Science Board, 1991-1993, 1997-2001
    Member, Defense Policy Board, 1997-2001
    Assistant Secretary of Defense for International Security Policy, 
U.S. Department of Defense, 1993-1996
    Member, National Academy of Sciences, Committee on International 
Security and Arms Control, 1990-1993
    Member, Sandia National Laboratory, President's Advisory Council, 
1992-1993
    Member, Congressional Office of Technology Assessment, Advisory 
Panel on START Verification Technologies, 1991-1992
    Member, National Academy of Sciences Panel on National Security 
Export Controls, 1990-1991
    Member, National Research Council Naval Studies Advisory Committee 
on the Future of the Aircraft Carrier, 1990-1991
    Member, White House, President's Council of Advisers on Science and 
Technology. Panel on National Security, 1990-1991
    Member, Defense Science Board Task Force on New Scenarios and 
Intelligence, 1990
    Member, Congressional Office of Technology Assessment Advisory 
Panel on START Verification Technologies, 1989-1990
    Member, Joint Chiefs of Staff Advisory Group on the Future of U.S.-
Soviet Military Relations, 1988-1989
    Member. Commission on The Presidency and Science Advising, 1988
    Consultant, Bureau of Intelligence and Research, U.S. Department of 
State, 1986-1988
    Member, Advisory Panel on Military Uses of Space, Office of 
Technology Assessment, U.S. Congress, 1985-86
    Analyst, Program Analysis and Evaluation, Office of the Secretary 
of Defense, Pentagon, 1981-1982
    Analyst, International Security and Commerce Program, Office of 
Technology Assessment, U.S. Congress, 1980-1981
    Experimental Research Associate, Brookhaven National Laboratory, 
1976
    Experimental Research Associate, Fermi National Accelerator 
Laboratory, 1975

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    a. Aspen Strategy Group, 1997-2009 (now emeritus member)
    b. Council on Foreign Relations, 1989-present
    c. Fellow, American Academy of Arts and Sciences, 1989-present
    d. American Physical Society, 1976-present
    e. American Association of Rhodes Scholars, 1977-present

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Department of Defense Agency Review Team, Obama-Biden 
Transition, 2008-2009
    Member of National Security Advisory Group to Senator Tom Daschle, 
then Senator Harry Reid, chaired by William J. Perry, 2005-2008
    Co-Chair, with Ronald Lehman, of Policy Advisory Group to Senator 
Richard Lugar, 2005-2008
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

  8/28/2008.....................  $2,300............  Friends of Hillary
  6/24/2008.....................  $4,600............  Obama for America
  9/15/2007.....................  $2,300............  Hillary Clinton
                                                       for President
  9/15/2007.....................  $2,300............  Hillary Clinton
                                                       for President
  6/29/2007.....................  $1,500............  Friends of Dick
                                                       Lugar, Inc.
  11/2/2006.....................  $1,500............  Friends of Dick
                                                       Lugar, Inc.



    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    1. Defense Intelligence Medal, from the Defense Intelligence 
Agency, April 1998.
    2. Distinguished Public Service Medal, Department of Defense 
(awarded three times), The highest award of the Department of Defense, 
``for exceptionally distinguished service to the Nation as Assistant 
Secretary of Defense for International Security Policy,'' July 1994 and 
December 1995, and ``for distinguished public service as Under 
Secretary of Defense for Acquisition, Technology and Logistics from 
April 2009 to June 2011.''
    3. Forum Award, American Physical Society. ``For his clear and 
lucid exposition of the physics issues in the nuclear arms race and his 
unique ability to combine his physics background and good judgment to 
clarify the technical parameters of these important public policy 
issues,'' 1988.
    4. Ten Outstanding Young Americans, U.S. Jaycees. 1987.
    5. Senior Scholar, St. John's College, 1978-1979
    6. Best Participant Prize, NATO Center for Subnuclear Physics, 
1978.
    7. Rhodes Scholar, 1976
    8. Summa cum laude, Phi Beta Kappa graduate, Yale University, with 
honors in medieval history and physics (B.A. 1976).
    9. Andrew D. White Essay Prize in European History, Yale 
University, 1976.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Please see attached.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have delivered a large number of speeches in my capacity as Under 
Secretary of Defense for Acquisition, Technology, and Logistics, and, 
previously, as Chair of the International and Global Affairs Faculty at 
Harvard's Kennedy School of Government. In a majority of cases, I have 
delivered these speeches using no notes, or using handwritten notes 
that have not been archived. Almost all of my speeches are derived 
from, or form the basis of, written publications or testimony, and 
their content can be found in my response to the previous question. As 
per the committee's request, I am providing two copies of each formal 
speech I have delivered (of which I have copies) on topics that are 
relevant to the position for which I have been nominated.
    1. ``Defense Budgets, American Power, and the National Security 
Industrial Base.'' Remarks at the Brookings Institution, 15 July 2011.
    2. Remarks at Heritage Foundation Conference, ``The Pentagon 
Efficiency Initiative: Enough to Stave Off More Defense Cuts?'' 20 
April 2011.
    3. ``Doing More Without More: Obtaining Efficiency and Productivity 
in Defense.'' Remarks at the Center for a New American Security. 22 
February 2011.
    4. Remarks at Aviation Week's R&D Technology and Requirements 
Conference. Washington, DC. 16 February 2011.
    5. ``The Defense Industry Enters a New Era.'' Remarks to Cowen 
Investment Conference, New York, NY. 9 February 2011.
    6. Remarks at Center for American Progress Conference, ``A $400 
Billion Opportunity: 10 Strategies to Cut the Fat out of Federal 
Procurement.'' 16 November 2010.
    7. ``Acquisition Process.'' Remarks before the Air Force 
Association Conference. 15 September 2010.
    8. Remarks at Navy League Sea-Air-Space Exposition, Gaylord 
Convention Center, Washington, DC. 4 May 2010.
    9. Remarks at Defense Logistics Modernization Conference. Center 
for Strategic and International Studies. 2 April 2010.
    10.Remarks at 38th IFPA-Fletcher Conference on National Security 
Strategy and Policy, ``Air, Space, and Cyberspace Power in the 21st 
Century.'' 20 January 2010.
    11. Remarks at PEO/SYSCOM Conference, Fort Belvoir, VA. 3 November 
2009.
    12. ``A Conversation with Ashton B. Carter.'' Council on Foreign 
Relations. 5 October 2009
    13. Remarks at Business Executives for National Security 
Conference, 13 May 2009.
    [Nominee provided copies and they are contained in the committee's 
executive files.]

    17. Commitment regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

    (The committee may require that copies of your Federal 
income tax returns be provided to the committee. These 
documents will be made available only to Senators and the staff 
designated by the chairman. They will not be available for 
public inspection.)
                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Ashton B. Carter.
    This 6th day of September, 2011.

    [The nomination of Hon. Ashton B. Carter was reported to 
the Senate by Chairman Levin on September 21, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 23, 2011.]


NOMINATIONS OF MICHAEL A. SHEEHAN TO BE ASSISTANT SECRETARY OF DEFENSE 
 FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT; MARK W. LIPPERT TO 
   BE ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY 
AFFAIRS; BRAD R. CARSON TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE 
 ARMY; AND KEVIN A. OHLSON TO BE A JUDGE OF THE U.S. COURT OF APPEALS 
                          FOR THE ARMED FORCES

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Webb, McCain, 
Inhofe, Graham, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; William G.P. Monahan, counsel; Michael 
J. Noblet, professional staff member; and Russell L. Shaffer, 
counsel.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Michael J. Sistak, research assistant; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Jennifer R. Knowles and Kathleen 
A. Kulenkampff.
    Committee members' assistants present: Gordon Peterson, 
assistant to Senator Webb; Chad Kreikemeier, assistant to 
Senator Shaheen; Anthony Lazarski, assistant to Senator Inhofe; 
Sergio Sarkany, assistant to Senator Graham; and Dave Hanke, 
assistant to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Mark Lippert to be Assistant Secretary of Defense for Asian and 
Pacific Security Affairs; Michael Sheehan to be Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict (SOLIC); Brad Carson to be General Counsel of the 
Army; and Kevin Ohlson to be a judge of the U.S. Court of 
Appeals for the Armed Forces. We welcome our witnesses and our 
nominees and their families to today's hearing.
    The long hours and the other sacrifices that our nominees 
are willing to make to serve our country are appreciated by us, 
and as they know full well, they could not happen without the 
support of their families.
    Each of our nominees has a distinguished record of public 
service.
    Mr. Lippert worked in the Senate for the better part of 10 
years serving as an advisor to a number of Senators and as a 
professional staff member for the Senate Appropriations 
Committee before joining the National Security Council (NSC) 
staff in 2009. In the same period, he has somehow found time to 
serve two tours on Active Duty as a naval intelligence officer, 
earning a Bronze Star in Iraq in 2008.
    Mr. Sheehan is currently the president of Lexington 
Security Group. He previously served on the NSC staff under the 
first President Bush, under President Clinton as coordinator 
for counterterrorism in the State Department, as Assistant 
Secretary General of the United Nations (U.N.), and as a Deputy 
Commissioner of Counterterrorism for the New York City Police 
Department (NYPD). Mr. Sheehan is a West Point graduate with a 
distinguished 20-year career in the Army.
    Mr. Carson served as a Congressman from Oklahoma from 2001 
to 2005. In 2008 and 2009, Mr. Carson served on Active Duty 
with an explosive ordnance disposal battalion in Iraq where he 
was awarded the Bronze Star. Mr. Carson is currently the 
Director of the National Energy Policy Institute and an 
associate professor of law and business at the University of 
Tulsa.
    Mr. Ohlson served as the chief of staff to the Attorney 
General from 2009 to 2011 and chief of staff to the Deputy 
Attorney General from 1997 to 2001. Before that, he served as a 
judge advocate in the Army and was awarded a Bronze Star for 
his role in the first Gulf War. Mr. Ohlson is currently the 
Chief of the Professional Misconduct Review Unit at the 
Department of Justice.
    If confirmed, Mr. Sheehan and Mr. Lippert would play a key 
role in guiding Department of Defense (DOD) policy as the 
Department works to address continuing threats to our national 
security in an austere budget environment, while Mr. Carson and 
Mr. Ohlson would be among the most senior legal officials in 
DOD.
    We look forward to the testimony of our nominees and 
hopefully to their confirmation.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our nominees and their families today, and I 
congratulate them on their nominations.
    As you mentioned, Mr. Sheehan has been nominated to be the 
Assistant Secretary of Defense for SOLIC. He has an extensive 
background in counterterrorism having served as a special 
forces officer in the Army and subsequently as coordinator for 
counterterrorism in the Department of State during the Clinton 
administration and as Assistant Secretary General at the United 
Nations in the Department of Peacekeeping Operations during the 
Bush administration.
    Mr. Sheehan, if confirmed, you will have a critical, 
important role given the importance of our Special Operations 
Forces counterterrorism efforts around the globe. Al Qaeda and 
associated organizations are becoming increasingly 
decentralized in nature and remain a serious threat. Prolonged 
instability in places like Yemen and Somalia continue to 
provide safe havens for these groups allowing them greater 
areas of operation to organize and plan attacks against 
America's allies, interests, and Homeland.
    Mr. Lippert has been nominated to be the Assistant 
Secretary of Defense for Asian and Pacific Security Affairs. 
Since graduating college in 1997, he has gained national 
security policy experience on Capitol Hill, with the 
administration, and without question his service as an 
intelligence officer with the Navy Reserve has added to his 
understanding. The next few years are critical to this broader 
and strategic endeavor. Mr. Lippert appears to be qualified, 
and I praise his service in uniform.
    I have serious concerns regarding his nomination. In a 
meeting in my office, I asked Mr. Lippert his views on the 
success of the surge in Iraq, and I find his answers to be less 
than satisfactory. I would like to follow up on that matter 
this morning.
    Mr. Carson has been nominated to be the Army's General 
Counsel and is well qualified to be a key advisor to Secretary 
McHugh and General Odierno. He possesses extensive experience 
in the public and private sectors, including representing the 
Second District of Oklahoma in the House of Representatives in 
the 107th and 108th Congresses. Mr. Carson's military service 
as a mobilized Navy Reserve intelligence officer serving with 
the 84th Explosive Ordnance Disposal Battalion in Iraq in 2008 
and 2009 is particularly noteworthy.
    Finally, Mr. Ohlson has been nominated to be a judge on the 
U.S. Court of Appeals for the Armed Forces, the civilian 
appellate court that oversees our military justice system. The 
court that you will serve on, if confirmed, is a key element in 
guaranteeing that the goals of the Uniform Code of Military 
Justice legislation enacted 60 years ago continue to be 
realized.
    Mr. Ohlson, your military service as a judge advocate in 
the Army and your years of service in the Department of Justice 
in a variety of capacities demonstrate your qualifications. 
However, your assignment from 2009 to 2011 as Attorney General 
Eric Holder's chief of staff and counselor during the period in 
which the Justice Department managed Operation Fast and Furious 
raised serious concerns. As a result, I am very troubled. 
Operation Fast and Furious, as we now know, resulted in over 
2,000 weapons walking into Mexico where they have been 
connected to the slaying of U.S. Border Patrol Agent Brian 
Terry and U.S. Immigration and Customs Enforcement Special 
Agent Jaime Zapata. On November 10, I submitted to you in 
writing a series of questions on this matter. I find your 
answers to be problematic.
    Without objection, I ask that my letter, Mr. Chairman, and 
Mr. Ohlson's response be made part of today's record. In other 
words, Mr. Ohlson's answer was he did not know a thing about 
it. I wonder why. I wonder why as chief of staff to Eric 
Holder, he does not know a thing about an operation of the 
scope and size resulting in the death of one of the citizens of 
my State, a killing with weapons that he did not know a thing 
about it.
    Chairman Levin. Those letters will be made part of the 
record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. I thank the Chairman.
    Chairman Levin. Let me call on Senator Inhofe first, and 
then we are going to welcome Senator Leahy to our committee for 
their comments on two of these nominees. Senator Inhofe?

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Yes, thank you, Mr. Chairman. I was going 
to introduce my friend, Brad Carson, and I have been crossing 
off the list things that have already been mentioned. Let me 
just say that he actually, Senator McCain, was born in Arizona 
in Winslow, and he had the good judgment to come to Oklahoma 
and spend up to this time there. He graduated from Jenks High 
School in Tulsa and attended Baylor and Trinity College and 
then ultimately the University of Oklahoma College of Law.
    He has been a friend of mine for a long period of time. We 
have disagreed on some of the political issues, but I can tell 
you right now, when he was first nominated and I discussed him 
with our mutual friend, Secretary McHugh, I went back and 
looked to refresh my memory and found that his voting record on 
our defense issues is right down the line where I think it 
should be for the position that he is nominated for. I am 
looking forward to supporting his nomination and serving with 
him.
    I want to say that, unfortunately, we have a 10 o'clock 
meeting in this building of the Environment and Public Works 
Committee where my attendance is mandatory since I am ranking 
member. So I have to leave a little bit early and I apologize 
for that, Mr. Carson.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Leahy, we are delighted to have you with us. You 
are the dear friend to all of the members of this committee, 
all the other Senators that serve with you, and your presence 
here will make an important statement on behalf of the nominee 
that you are here for. Senator Leahy?

STATEMENT OF HON. PATRICK LEAHY, U.S. SENATOR FROM THE STATE OF 
                            VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I appreciate being 
here. Earlier I wished Senator Inhofe a happy birthday and I 
will do it again publicly. It is good to be with you and 
Senator McCain and Senator Webb. Like Senator Inhofe, I have to 
leave for the Judiciary Committee right after this.
    But I really wanted to be here to introduce Mark Lippert. 
He is a personal friend but he is also a former member of my 
staff. The President has nominated him to be Assistant 
Secretary of Defense for Asian and Pacific Security Affairs. I 
told the President I thought that was a great nomination. I 
have known him for years. I know what a lifelong public servant 
he is. He was raised in Ohio, went to Stanford University for 
his undergraduate degree, then a master's in international 
relations in 1997.
    When he joined my office 11 years ago in the year 2000, he 
quickly was promoted through the ranks. I promoted him to be a 
professional staff member for the Appropriations Subcommittee 
on State and Foreign Operations where all of the State 
Department appropriations and all of our international programs 
go. He assisted me with U.S. foreign policy and assistance 
programs with a focus on East Asia. He traveled there a number 
of times. He learned the history, the culture, the people. His 
advice was very valuable to both Democrats and Republicans on 
the subcommittee because we knew how professional it was and 
how non-political it was. He spoke with the highest integrity, 
but also with great analytical abilities and exceptional 
intellectual abilities. I hated to see him leave when he went 
to join then Senator Barack Obama as his chief foreign policy 
advisor, but then remained with the President as one of his top 
foreign policy experts, ultimately as the chief of staff for 
the NSC.
    But then he decided to leave the White House. He had joined 
the Navy while working in my office. He told me about his 
commission--I asked him why. He said it was a result of his 
lifelong dream to serve as a military officer. I remember how 
proud we all were to see him as a naval officer. He left the 
White House post. He did it to return to Active Duty in the 
Navy, including the posting, as you have already indicated, Mr. 
Chairman, in Afghanistan.
    Throughout all this, I have seen nothing but integrity, 
intelligence, and a willingness, perhaps a desire to serve the 
United States of America, and I think this is a great 
appointment.
    I should note that Mark's wife Robyn is here, as well as 
his parents. Robyn was a staff member in my office when she and 
Mark first met. So I take full credit for their successful 
marriage. She herself is somebody of great accomplishment.
    I will put my full statement in the record, but, Mr. 
Chairman, those of us who are either chairs or ranking members 
of various authorizing committees have a great responsibility, 
along with the other members, in passing on nominees. I can 
assure you this is one nominee that you can vote to confirm and 
you will not find a reason to second-guess your decision.
    I thank the chair and I thank the ranking member.
    [The prepared statement of Senator Leahy follows:]
              Prepared Statement by Senator Patrick Leahy
    Chairman Levin, Ranking Member McCain, and members of the 
committee, it is my pleasure to introduce Mark Lippert, my friend and a 
former member of my staff, and President Obama's nominee to be his 
Assistant Secretary of Defense for Asian and Pacific Security Affairs.
    I have known Mark for many years and am proud of his 
accomplishments as a lifelong public servant. Mark has the character 
and the qualifications to make an outstanding defense senior leader, 
and I am proud to give him my highest endorsement.
    Mark was raised in Ohio and attended Stanford University where he 
received his undergraduate degree in Political Science in 1996 and a 
Masters in International Relations in 1997. In 2000, Mark joined my 
office as a research assistant and quickly stood out on account of the 
sharpness of his intellect which was matched only by his sense of 
humor.
    In 2001, I promoted him to be a professional staff member for the 
Appropriations Subcommittee on State and Foreign Operations, where he 
assisted me with U.S. foreign policy and assistance programs with a 
focus on East Asia. In that capacity, he traveled to the region several 
times and developed a deep knowledge of the history, politics, and 
cultures of that critically important part of the world.
    Mark did an outstanding job for the subcommittee and was 
universally respected by his peers of both parties for being a person 
of the highest integrity with exceptional intellectual and analytical 
abilities.
    In 2005, I felt a mixture of pride and sadness when I bid Mark good 
luck as he joined the staff of then Senator Barack Obama as his chief 
foreign policy advisor. After President Obama's election in 2008, Mark 
remained one of the President's top foreign policy experts and 
ultimately the chief of staff of the National Security Council.
    Parallel to his civilian career, Mark has also had an exemplary 
military career as a Naval Reserve officer. In 2007, Mark paused his 
civilian life--which at that time meant taking the difficult step of 
leaving a political campaign during a key moment--and deployed to 
provide intelligence support to Navy SEAL operations in Iraq.
    When he decided to leave his White House post in 2009, Mark did so 
in order to return to Active Duty in the Navy. That tour included 
postings in Afghanistan and the Horn of Africa.
    Mark actually joined the Navy while working in my office, and he 
expressed to me that his commission was the result of his lifelong 
dream to serve as a military officer. In that light, I see this 
nomination, and today's hearing, as the predictable consequence of 
Mark's passion for service, his professional excellence, and his 
outstanding character and integrity.
    I would be remiss if I did not also introduce Mark's wife Robyn to 
the committee. Robyn was also a staff member in my office when she and 
Mark first met, so I take full credit for that. Robyn has had well-
deserved success in her own career, and I know the committee joins me 
in thanking her for her support of Mark during his multiple 
mobilizations overseas.
    Chairman Levin, Ranking Member McCain, and members of this 
committee, I urge you to favorably report the nomination of Mark 
Lippert to be Assistant Secretary of Defense for Asian and Pacific 
Security Affairs. I know firsthand, as does the President, that Mark is 
well-qualified for the job.

    Chairman Levin. Thank you so much, Senator Leahy, and we 
know that you, like Senator Inhofe, have to leave us and we 
totally understand.
    Senator Inhofe, apparently today is your birthday.
    Senator Inhofe. It is.
    Chairman Levin. The little birdie just said that, Senator 
Leahy. Happy Birthday Senator Inhofe.
    Thank you very much, Senator Leahy.
    We will now move to our nominees. The defense authorization 
bill is on the floor beginning at 11 o'clock, so we may have to 
do some scrambling if we are not done by then.
    Please introduce any family or any other people who are 
here with you; feel free to do that. We will start with Mr. 
Sheehan.

  STATEMENT OF MICHAEL A. SHEEHAN, NOMINATED TO BE ASSISTANT 
 SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY 
                            CONFLICT

    Mr. Sheehan. Thank you, Mr. Chairman. Chairman Levin, 
Ranking Member McCain, and members of the Senate Armed Services 
Committee, thank you for the opportunity to appear before your 
committee today. I am grateful of the confidence that President 
Obama has shown by nominating me to be Assistant Secretary of 
Defense for SOLIC. I also want to thank Secretary Panetta, 
Deputy Secretary Carter, and Under Secretary Flournoy for their 
support of my nomination. If confirmed, I will be deeply 
honored to serve.
    Given that SOLIC was created by Congress, there has always 
been a unique and valuable relationship between this committee 
and the office for which I have been nominated. Your support 
and that of the American people for our Special Operations 
Forces continues to be one of the key enablers of our success. 
Thank you for that.
    I also want to thank my family for my support. My wife Sita 
Vasan is with me this morning and my son Michael is right 
directly behind me. Thank you to them for their great support 
during my career and their being with me today.
    I believe that my policy background, as mentioned before, 
at the State Department, the U.N., and at the NYPD has well 
prepared me for this nomination, as well as my operational 
experience as an Active Duty Special Forces officer in both the 
counterterrorism unit as the assault team leader for our 
Special Forces A team in Panama and also as a counterinsurgency 
advisor in Central America for many years.
    If the Senate confirms me in this position, I will make 
every effort to live up to the confidence placed in me and the 
excellence demonstrated by our Special Operations Forces around 
the world every day.
    Thank you very much.
    Chairman Levin. Thank you very much, Mr. Sheehan.
    Now Mr. Lippert.

    STATEMENT OF MARK W. LIPPERT, NOMINATED TO BE ASSISTANT 
  SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS

    Mr. Lippert. Thank you. Mr. Chairman, Senator McCain, 
members of the committee, thank you for the opportunity to 
appear before you this morning.
    I have to admit that after working for 10 years on Capitol 
Hill as a staff member, it is much more intimidating to sit on 
this side of the dais.
    I would also like to thank my former boss, Senator Leahy, 
for his gracious introduction. From past experience, I know how 
busy he is every Thursday morning with his responsibilities as 
chairman of the Judiciary Committee, and I very much appreciate 
his time.
    I wish to thank President Obama, Secretary Panetta, and 
Under Secretary Flournoy for their support of my nomination.
    Please let me say a few words about my family. I would like 
to introduce my wife, Robyn Lippert, whom I met while working, 
as Senator Leahy mentioned, together on Capitol Hill. She has 
been the best partner that anyone could ask for and has 
patiently put up with military deployments to Iraq, 
Afghanistan, and elsewhere, long hours at the NSC, and the 
grind of the State and Foreign Operations Subcommittee.
    My mother and father, Susan and Jim Lippert, have made the 
trip from home, Cincinnati, OH, and I am deeply grateful for 
their lifetime of support.
    I would also be remiss if I did not introduce Captain John 
Burnham and Master Chief Bubba Dodson, two friends and mentors 
from my time on Active Duty at Naval Special Warfare 
Development Group.
    Members of the committee, from the fight to disrupt, 
dismantle, and defeat al Qaeda in Afghanistan and Pakistan, to 
maintaining and enhancing our force posture with treaty allies 
and partners in East and Southeast Asia, to engaging emerging 
powers such as India and China and preventing the proliferation 
of weapons of mass destruction, the challenges of this dynamic 
and important portfolio are self-evident. Accordingly, in the 
interest of time, I will simply say that these are among the 
greatest challenges that our Nation faces today and could face 
well into the future.
    If confirmed, I look forward to working with the committee 
and Congress as a whole to help address these challenges in an 
effective and bipartisan way to keep America safe, secure, and 
prosperous, ensuring it continues to be the greatest country on 
Earth.
    Thank you.
    Chairman Levin. Thank you very much.
    Next we will call on Brad Carson. We welcome you 
particularly as a former colleague. Mr. Carson?

STATEMENT OF BRAD R. CARSON, NOMINATED TO BE GENERAL COUNSEL OF 
                   THE DEPARTMENT OF THE ARMY

    Mr. Carson. Thank you, Senator Levin. Mr. Chairman, Senator 
McCain, Senator Webb, Senator Cornyn, other members of the 
committee, I do appreciate the opportunity to appear before you 
today. I would like to thank President Obama for nominating me 
to the position of General Counsel of the Army. I would also 
like to thank Secretary McHugh for his support of my 
nomination, and Senator Inhofe for his very kind words. If 
confirmed, I will be honored to serve as General Counsel of the 
Army.
    My wife Julie is here with me today. She has always been an 
unflinching supporter of mine. Also present is Karen Kuhlman 
who is a dear friend and the former legislative director of my 
office when I served in the U.S. House of Representatives.
    I believe that my background in law, education, business, 
and politics well prepare me to meet the extraordinary 
challenges facing the U.S. Army today. If the Senate confirms 
me to this position, I will make every effort to live up to the 
confidence placed in me. I am grateful for your consideration, 
and I look forward to your questions.
    Chairman Levin. Thank you very much, Mr. Carson.
    Mr. Ohlson?

 STATEMENT OF KEVIN A. OHLSON, NOMINATED TO BE A JUDGE OF THE 
           U.S. COURT OF APPEALS FOR THE ARMED FORCES

    Mr. Ohlson. Thank you, Senator Levin. Mr. Chairman, it is a 
great privilege to appear before this committee as the 
President's nominee to be a judge on the U.S. Court of Appeals 
for the Armed Forces.
    I would like to thank you, Mr. Chairman, and the members of 
this committee for convening this hearing today and for 
considering me for this important post.
    I would also like to thank the President for his expression 
of confidence in me by nominating me for this position. If 
confirmed, I promise to do my level best to vindicate that 
trust.
    Of course, I would like to thank my wife Carolyn and our 
two children, Matthew and Katherine, who are in school today. 
It is clear to me that I would not be sitting here today if it 
were not for their enduring love and support.
    Mr. Chairman, during my entire professional career, I have 
experienced no greater honor than serving as an officer in the 
U.S. Army. I was privileged to serve in the Judge Advocate 
General's Corps and to prosecute a number of cases as a trial 
counsel, as well as to provide legal advice to commanders and 
their staff on a wide range of legal issues.
    But beyond that, during my time in the Army, I was 
privileged to become personally familiar with the men, women, 
mission, and ethos of the U.S. military and to see firsthand 
the exceptional quality of our Armed Forces. I will always 
treasure the opportunities I had to rappel out of helicopters 
at Air Assault School, to jump out of airplanes during my tour 
of duty at Fort Bragg, and to serve our Nation during Operation 
Desert Storm. If confirmed, I will bring to bear on my duties 
as a judge on the U.S. Court of Appeals for the Armed Forces 
all of these experiences that I have had in the military.
    But in addition to this, if I am confirmed, I will also 
keep in mind my family's long tradition of serving as citizen 
soldiers at the hour of our Nation's greatest need. I have had 
relatives serve in virtually every armed conflict that our 
country has engaged in during the last century. As just a few 
examples, my grandfather, Leo Gauvreau, was an American 
doughboy who served in the trenches during World War I. My 
uncle, Leif Ohlson, made the ultimate sacrifice for our country 
on the battlefields of France on June 29, 1944, and today lies 
at rest at the cemetery at Normandy. Mr. Chairman, I am very 
proud to note that even as we sit here today, my nephew, Blake 
Perron, is in basic training at Fort Benning striving to become 
the very best infantryman he can be.
    So if I am confirmed, it is to these citizen soldiers and 
to all their comrades in arms to whom I will dedicate my 
service on the U.S. Court of Appeals for the Armed Forces.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Mr. Ohlson.
    Let me now ask you a set of standard questions and you can 
answer together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Sheehan. Yes.
    Mr. Lippert. Yes.
    Mr. Carson. Yes.
    Mr. Ohlson. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Sheehan. No.
    Mr. Lippert. No.
    Mr. Carson. No.
    Mr. Ohlson. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Sheehan. Yes, sir.
    Mr. Lippert. Yes, sir.
    Mr. Carson. Yes, sir.
    Mr. Ohlson. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Sheehan. Yes.
    Mr. Lippert. Yes.
    Mr. Carson. Yes.
    Mr. Ohlson. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Sheehan. Yes.
    Mr. Lippert. Yes.
    Mr. Carson. Yes.
    Mr. Ohlson. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Sheehan. Yes.
    Mr. Lippert. Yes.
    Mr. Carson. Yes.
    Mr. Ohlson. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Sheehan. Yes.
    Mr. Lippert. Yes.
    Mr. Carson. Yes.
    Mr. Ohlson. Yes.
    Chairman Levin. Thank you.
    Let us have a first round of 7 minutes for questions, and 
there are only a few of us here at the moment. We can have a 
second round if appropriate or needed, a third round for that 
matter. We can have whatever number of rounds we need.
    Let me start with you, Mr. Sheehan. In your book titled 
``Crush the Cell'', you say that by working closely with 
foreign units that we may be able to reduce human rights 
violations associated with those operations. But if you want to 
get things done, sometimes we must work in conjunction with 
tough organizations with spotty human rights records.
    Can you give us an idea as to how the benefits of working 
with partners be balanced with the necessity that they meet our 
human rights standards under the law?
    Mr. Sheehan. Yes, Mr. Chairman. When I was Ambassador-at-
Large for Counterterrorism prior to September 11 and I was 
focusing on al Qaeda, I found that our Government had cut off 
relationships with some of the intelligence agencies for human 
rights violations and that I felt made our life a little bit 
more difficult. Moving forward, I find that often where al 
Qaeda resides, you are often working with countries that have 
less developed systems of governance and less developed 
judicial systems. So often you are dealing with organizations 
that do not maintain the same standards that we are accustomed 
to in the United States and in the West.
    I feel that working together with them, we can achieve both 
our intelligence collection objectives and work to 
professionalize those services as they work towards moving to 
the standards of professionalism in human rights that we expect 
of them. I think there has been great progress in that area, 
but as with most of these very developing and sometimes broken 
states, it requires a lot of patience and long work to achieve 
those objectives. But in the long run, I think both are equally 
important to achieving our security objectives in those broken 
and developing states.
    Chairman Levin. Let me ask you another question, Mr. 
Sheehan, relative to the Special Operations Forces night raids 
along with Afghan commandoes in Afghanistan. Frequently they 
have removed literally thousands of insurgents from the 
battlefield without any shots being fired, but nonetheless, 
night raids remain controversial in Afghanistan as we read 
again in this morning's paper when we see President Karzai 
indicating that the ending of those night raids is a condition 
of a long-term relationship with the United States. The Afghan 
Government and community leaders have repeatedly called for 
eliminating their use.
    Can you talk about those night raids? How important is the 
participation of Afghan commandoes in those operations? How do 
we address Afghan concerns about those night raids?
    Mr. Sheehan. Mr. Chairman, the ability to operate at night 
is one of the great advantages our Special Operations Forces 
have in every theater of operations, to include as we train our 
local counterparts and give them the technology and expertise 
to work at night, it also gives them a great advantage. 
Simultaneously we are aware of the cultural issues and other 
problems raised politically by the Afghan Government. We are 
trying to find the proper balance in that.
    But as you mentioned, the key here is transferring the lead 
of these night operations to the local Special Operations 
Forces as they develop their capacity in conjunction with ours. 
I think we are moving well in that direction. I think the 
commanders are very aware of the issue of the sensitivity of 
night raids and have taken that under consideration. I think 
there has been a reduction in the amount of civilian casualties 
from what I understand. I think we are moving on the right 
track in that very important area, but as you had mentioned, 
the key, as in all counter-insurgency operations, is shifting 
that primary burden to the local security forces that then can 
make that initial interaction in the villages in Afghanistan.
    Chairman Levin. Thank you.
    Mr. Lippert, there is a real issue that has been raised by 
Senator Webb, Senator McCain, and myself relative to the 
realignment issues on Okinawa and Guam. I have a lot of 
questions of you about that, but I see that Senator Webb is 
here, and in the hope that he may take on that subject, I will 
withhold at this time. However, if he either is unable to or 
has to leave--and I do not want to put this onus on him, but if 
he is unable to do it--I know what his thoughts are on this and 
I totally share them--I would then ask you questions for the 
record. I am just going to leave it at that at the moment 
because I think we have to change, the road we are on is not 
workable, and that is my view. I think Senator Webb would 
probably go into it in more detail, but I will press you on 
more detail again on the record if he is not able to get into 
that for whatever reason.
    Mr. Lippert, I will ask you, though, about the Haqqani 
Network. Would you agree that in order for relations between 
the United States and Pakistan to be normalized, that the 
Government of Pakistan has to go after safe havens in Pakistan 
for the extremists who are crossing the border and attacking 
U.S., Afghan, and coalition forces?
    Mr. Lippert. Yes, Senator.
    Chairman Levin. Mr. Carson, just one quick question for you 
and that has to do with the legal status of contractors on the 
battlefield. There is a very significant number of issues here 
about the legal status of contractors in the battlefield areas. 
Are you familiar with some of those issues? If so, would you 
agree that DOD needs to review the legal status of contractors 
on the battlefield to ensure that we are not subjecting 
contractor employees to legal jeopardy when they work to 
support our efforts in hostile areas like Iraq and Afghanistan?
    Mr. Carson. Senator, I believe that is, in fact, a very 
significant issue, and I know DOD is reviewing those issues 
even as we speak. If confirmed, I hope to get myself more 
expert in those issues and make it a top priority to resolve 
them.
    Chairman Levin. Thank you.
    Mr. Ohlson, criminal defendants in the Article III judicial 
system have an automatic right to appeal to Federal courts of 
appeal and then a right to at least petition the U.S. Supreme 
Court for final review of their criminal cases. In contrast, 
defendants in military courts martial may not appeal their 
cases to the U.S. Supreme Court unless the U.S. Court of 
Appeals for the Armed Forces has also granted discretionary 
review.
    Should defendants in the military justice system in your 
opinion in Article I courts have the same right as defendants 
in Article III courts to petition the Supreme Court for review 
of their case even if the Court of Appeals for the Armed Forces 
has denied their petition for review?
    Mr. Ohlson. Mr. Chairman, I do believe that individuals 
within the Article I court made up by the Court of Appeals for 
the Armed Forces should have the identical right as those 
defendants in the Article III courts and that the Supreme Court 
should have the ability to address those cases.
    Chairman Levin. Thank you all.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Ohlson, in your response to my letter of November 10, 
you stated you had no knowledge of Operation Fast and Furious 
throughout your assignment as Attorney General Holder's chief 
of staff and counselor. Your letter, not surprisingly, seems to 
track closely with Attorney General Holder's assertions about a 
lack of knowledge of this disastrous operation.
    Was there ever a time in 2009 or 2010 you can remember 
reading about or discussing with Bureau of Alcohol, Tobacco, 
and Firearms (ATF) officials Operation Gun Runner or Operation 
Fast and Furious?
    Mr. Ohlson. No, Senator. That never occurred.
    Senator McCain. Agent Brian Terry was murdered in Arizona 
in a firefight on December 14, 2010. Did you hear about his 
death at that time and the circumstances?
    Mr. Ohlson. I did, Senator McCain.
    Senator McCain. When did you become aware then that two 
weapons that were found at the scene were linked to the gun-
walking program known as Operation Fast and Furious?
    Mr. Ohlson. Senator, I found out about that through press 
accounts sometime after I left serving as chief of staff to the 
Attorney General.
    Senator McCain. So when this agent was murdered, it did not 
arouse your curiosity as to find out the details of his death?
    Mr. Ohlson. There was no indication at that time, sir, that 
there was any connection with Fast and Furious. I was not aware 
of Fast and Furious.
    Senator McCain. But when a Border Patrol agent is murdered, 
you did not say, hey, what is the story here? How did this 
happen?
    Mr. Ohlson. Yes, sir, and I remember the tragedy of----
    Senator McCain. Well, did you ask questions about it?
    Mr. Ohlson. No, sir. I was in a briefing of the Attorney 
General at that time and I learned of the death of Agent Terry.
    Senator McCain. When you learned about it, no matter what 
you were doing, it did not arouse your curiosity as to ask what 
the circumstances were?
    Mr. Ohlson. We were briefed on that, sir. It certainly 
aroused my sympathy for the family and I think it was----
    Senator McCain. But you did not ask enough to find out that 
this was part of Fast and Furious.
    Mr. Ohlson. Senator McCain, there was not a basis for me to 
ask that question at that time.
    Senator McCain. You would not ask how did the murderers get 
the weapons that they were using? That again did not arouse 
your curiosity?
    Mr. Ohlson. Sir, I did not ask that question.
    Senator McCain. You discussed in your letter routine 
courtesy copies of weekly reports that were sent to you. What 
information did those reports include about the gun-selling 
tactics of Operation Fast and Furious?
    Mr. Ohlson. Sir, as I understand it, those reports did not 
make any mention of gun-walking. They simply referred to the 
operation as Operation Fast and Furious.
    Senator McCain. So you get a memo and it says it is part of 
Operation Fast and Furious and you do not say, hey, what is 
Operation Fast and Furious?
    Mr. Ohlson. As it turned out, Senator, I did not read that 
weekly report.
    Senator McCain. So you are given weekly reports that you do 
not read?
    Mr. Ohlson. Sir, there were a number of courtesy copies 
that are sent around the Department, and you are correct. I did 
not read that report.
    Senator McCain. So we have reports that are required to be 
submitted to your department and they come to you, the chief of 
staff for the Attorney General of the United States, only as a 
courtesy.
    Mr. Ohlson. Yes, sir.
    Senator McCain. Did you or Mr. Holder ever receive 
information from the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives about its efforts to curtail firearms smuggling into 
Mexico?
    Mr. Ohlson. I was not privy to any such conversation, sir, 
no.
    Senator McCain. Again, you were not curious even though the 
issue of guns being smuggled into Mexico has been widely 
discussed, widely--a source of deep concern amongst many of us 
in public life. But it did not arouse your curiosity.
    Mr. Ohlson. I certainly take your point, Senator. As chief 
of staff, that was not within my area of purview, but in 
retrospect, I wish I had known more about that operation.
    Senator McCain. What actions did you take following news 
about Agent Terry's death?
    Mr. Ohlson. I did not take any actions in particular, 
Senator McCain.
    Senator McCain. Mr. Lippert, it has been widely reported 
that while serving in the White House, you and then-National 
Security Advisor General Jim Jones clashed significantly. It 
has also been widely reported that your departure from the 
White House to return to Active Duty in the Navy was an attempt 
to resolve this conflict. Would you please explain your 
interpretation of these events?
    Mr. Lippert. Senator, I have great respect for General 
Jones' lifetime of service from Vietnam veteran to Commandant 
of the Marine Corps to Supreme Allied Commander to his service 
in the White House, just the highest degree of respect for him 
and his service.
    In terms of the press accounts, I did not leak to the press 
about General Jones. My departure from the White House was 
voluntary. I actually turned down a promotion at the White 
House to return to Active Duty.
    Senator McCain. So there was no conflict between you and 
General Jones?
    Mr. Lippert. Senator, General Jones and I worked 
collaboratively on many issues, and I am proud of what we 
accomplished. But there were also times we disagreed. But I 
knew General Jones was the boss.
    Senator McCain. So your departure from the White House had 
no relation whatsoever to the problems with the relationship 
between you and General Jones?
    Mr. Lippert. Senator, as I mentioned, I was offered a 
promotion in the White House and then I turned down that 
promotion to return to Active Duty.
    Senator McCain. You are not answering the question.
    Mr. Lippert. Senator, the promotion was to the White House 
Military Affairs Office which would have been separate and 
apart from the NSC. At that point, I turned down that job and 
returned to----
    Senator McCain. I will ask the question one more time, Mr. 
Lippert, and I would like to have an answer. Did your departure 
from the White House have anything to do with the widely 
reported conflict that you had with General Jones?
    Mr. Lippert. Again, Senator, I would say it was due to the 
fact that I wanted to leave the NSC, went over to the White 
House Military Affairs Office, and turned down that promotion, 
sir.
    Senator McCain. If you do not choose to answer the 
question, that is fine.
    Ambassador Sheehan, very quickly do you believe that the 
Afghans are capable of carrying on night raids without U.S. 
military presence?
    Mr. Sheehan. Senator McCain, from my understanding, the 
Afghan Special Operations Forces that work in tandem with our 
Special Operations Forces have demonstrated a greatly increased 
capacity to operate on a wide range and some night operations. 
Right now at this point, I am not sure they are ready to really 
step up fully to the plate.
    Senator McCain. Do you know anybody that does?
    Mr. Sheehan. No, sir. I think most believe they still need 
some more work with our folks.
    Senator McCain. I thank you.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First, with respect to the chairman's question about the 
issue on Okinawa and Guam, I would suggest that we work up a 
joint written question for the record that could be answered in 
an accelerated fashion before the confirmation comes before the 
whole committee. I do not have enough time in 7 minutes to do 
the question justice, but it is a vital question in terms of 
what we are doing in that part of the world including, by the 
way, the announcement yesterday after a court ruling that the 
Navy says it is going to take more than 2 years for it to 
figure out an environmental impact report on the training 
ranges in Guam, which really I find kind of confusing at this 
point.
    Chairman Levin. Thank you, Senator Webb, for that 
suggestion, and I just checked also with Senator McCain and we 
will ask our staffs, the three of us, to put together a joint 
question.
    Senator Webb. I appreciate that. It is very important for 
us to have a clear understanding of where Mr. Lippert and the 
Pentagon at large is going on that.
    First, I would like to congratulate all of the nominees and 
to thank them for having taken time in various ways to serve 
our country as they moved forward on those other careers and to 
welcome family and friends who are here today. I intend to 
support, without question, three of these nominations.
    Mr. Lippert, you and I need to have a longer meeting. These 
nominations, although they may have been in process for some 
time, were moved very quickly once they were announced. I have 
a number of concerns.
    First is this position that you are being nominated to is 
one of the three or four most vital assistant secretaryships 
right now in DOD given the transitions that we are looking at 
and the renewed emphasis which I have cared about for a very 
long time on our strategic presence in that part of the world. 
There have been questions about how this matches up with your 
professional skill set, however accomplished it is at this 
point. I would ask, first, if you would give us an explanation, 
first in terms of your view of the scope policy-wise and 
geographically of the position and how your experiences match 
up with that.
    Mr. Lippert. Senator, the answer to your first question on 
the scope of the position, it covers everything from the 
Western Pacific, U.S. Pacific Command area of responsibility to 
South Asia, Armed Forces Pacific, up to Central Asia.
    In terms of my qualifications for the job, I bring a unique 
skill set of hands-on and policy experience to the position. In 
terms of hands-on, I was on the ground in Afghanistan. I have 
that experience. I studied Mandarin Chinese, lived in Beijing 
while I was a graduate student at Beijing University taking 
language courses.
    In terms of policy experience, I have 10 years of service 
on Capitol Hill working for Senator Daschle, the Democratic 
Policy Committee, working for Senator Leahy on the State and 
Foreign Operations Subcommittee, and then working for Senator 
Obama on the Senate Foreign Relations Committee. All of that 
time gave me the skill set to tackle a lot of complex, 
difficult problems. It also had me engage in a range of these 
issues that we are still facing today. It allowed me to balance 
portfolios, juggle responsibilities, and deal with these 
substantive issues head on.
    Then finally my time with the NSC. During that time, I 
regularly engaged in these types of issues day-in, day-out, and 
at senior levels of the Government.
    I would just say in terms of my experience, I bring 
somewhat anecdotally to someone who sat in summits with the 
President and Asian leaders, someone who has been on the ground 
in Afghanistan, and someone who has a mastery of foreign 
assistance programs in Southeast Asia and the South Asia 
region.
    Senator Webb. I thank you for that. I look forward to 
spending some time with you when you can visit my office when 
we can discuss that connection further.
    I want to follow on to something that Senator McCain raised 
because it is a question that has been widely reported in the 
media and it affects not simply whether or not you and General 
Jones had some sort of a fallout but it is also a question of 
how someone works when they are on one of these high-level 
staffs.
    I, like most people on this committee, have a tremendous 
regard for General Jones. I have known him for many, many 
years. I believe he is one of the most knowing public servants 
that we have had, and I greatly admire his leadership style.
    The question that came up--and there have been a couple of 
reports on this. This is to give you an opportunity to clarify 
this. It said you were widely suspected of leaking salacious 
and damaging stories about General Jones. This was reported--I 
am reading from an article by Josh Rogin, but it was also 
reported by Bob Woodward in his book. There was a comment in 
there that at one point people seemed to agree this was rank 
insubordination. These are words that have been reported.
    Can you explain to us a little more what these reports were 
all about?
    Mr. Lippert. Senator, there were a number of reports 
derogatory towards General Jones that were coming out while I 
was chief of staff at the NSC. I, again as I said to Senator 
McCain, had nothing to do with those reports. I did not talk to 
the press about General Jones. Full stop there.
    On the other issue, in terms of rank insubordination, I 
knew General Jones was the boss. So on this issue, it is clear 
in my head. It is that I did not leak to the press and there 
was not insubordination.
    Senator Webb. So you can say categorically you were not the 
author of any of these personal leaks to the press directly or 
indirectly through a third party?
    Mr. Lippert. Yes.
    Senator Webb. Thank you. I will look forward to seeing you 
on a longer visit in my office.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Ohlson, I wanted to just ask you some questions briefly 
following up on Senator McCain. What was the description of 
your duties as chief of staff for the Attorney General from 
January 2009 through January 2011?
    Mr. Ohlson. Senator Cornyn, there were a number of 
attorneys who worked within the Office of the Attorney General. 
I supervised them, and I also provided advice as a career 
member of the Department of Justice for 22 years. I am quite 
familiar with the Department and advised the Attorney General 
on issues related to it.
    Senator Cornyn. Let me ask specifically. In the Judiciary 
hearings of last week or so when we were asking the Attorney 
General some questions about memos that had been directed to 
him, there was one directed to him, an NDIC memo. Do you know 
what that stands for?
    Mr. Ohlson. National Drug Intelligence Center, sir.
    Senator Cornyn. That referred to Fast and Furious. It was 
dated July 5, 2010. There was a subsequent memo entitled 
``Significant Recent Events Memo'' that was dated November 1, 
2010. Would you have been involved in either the preparation of 
or in the forwarding of those memos to the Attorney General for 
his attention?
    Mr. Ohlson. No, Senator Cornyn.
    Senator Cornyn. Who would be responsible to make sure that 
the Attorney General sees relevant memos from the Department of 
Justice that require his attention?
    Mr. Ohlson. We had within the Office of the Attorney 
General attorneys who were subject-matter experts with the 
various components, and if through reviewing material they 
determined that there was information that needed to be 
forwarded to the Attorney General, they would do so, sir.
    Senator Cornyn. But is there anybody who serves as, for 
lack of a better word, a traffic cop for the Attorney General 
to make sure that he sees the most important things that 
require his eyes-on attention?
    Mr. Ohlson. I would be the ultimate funnel point for that 
information, sir.
    Senator Cornyn. When did you first learn about the gun-
walking associated with Fast and Furious?
    Mr. Ohlson. Through press accounts in approximately 
February of this year after I was no longer chief of staff, 
Senator Cornyn.
    Senator Cornyn. Was that about the time the Assistant 
Attorney General Weich delivered a letter to Senator Grassley 
denying that any gun-walking had occurred?
    Mr. Ohlson. Yes, sir, that would be the same time frame.
    Senator Cornyn. Were you involved in preparing or approving 
that letter?
    Mr. Ohlson. I was not, sir. I was no longer serving within 
main Justice at that time.
    Senator Cornyn. When did you first learn that that letter 
was false?
    Mr. Ohlson. Approximately 10 days ago.
    Senator Cornyn. Would that have been roughly the time Lanny 
Breuer was testifying before the Judiciary Committee?
    Mr. Ohlson. Yes, sir.
    Senator Cornyn. Mr. Lippert, let me ask you some questions 
about Taiwan. You have been nominated for a very important 
position in that very important part of the world. I have some 
charts here I would like to just show you. First, a chart that 
shows the official estimates by DOD. It shows the People's 
Republic of China with about 2,300 operational combat aircraft 
while the Government of Taiwan has only 490 operational combat 
aircraft.
    Let me show the second chart, please. The reason why that 
is very important is out of the 490 operational aircraft--as 
you can see, this chart from the Defense Intelligence Agency 
demonstrates that F-5 aircraft, as well as French Mirage 
aircraft, are old and becoming quickly obsolete, hard to 
repair, hard to get replacement parts for. You can see the huge 
cliff here dropping down in roughly 2020 in terms of the number 
of operational combat aircraft that Taiwan will have to deal 
with any Chinese aggression.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cornyn. If confirmed, what course of action do you 
plan to pursue to ensure that the U.S. Government keeps its 
commitments under the Taiwan Relations Act to make sure they 
have the defensive weaponry necessary to defend that nation 
against aggression by communist China?
    Mr. Lippert. Senator, I strongly support a comprehensive, 
durable, and unofficial relationship with Taiwan, this vibrant 
democracy, and I am deeply concerned with the buildup that you 
referenced in your charts. My thinking will be guided by the 
``one China policy'', the three communiques, the Taiwan 
Relations Act, and the six assurances. If confirmed, I can 
assure you that I am going to be an open-minded official that 
hears all sides of this debate, but I am not in the job yet, so 
I would not want to go further on that point.
    Senator Cornyn. Do you have an opinion as to how many 
viable combat aircraft Taiwan needs in order to defend itself 
against communist aggression?
    Mr. Lippert. I do not at this point in time, but if 
confirmed, I would dig into that question and work with your 
staff on that, sir.
    Senator Cornyn. In light of the imbalance that I have just 
shown you and the deterioration of Taiwan's air force, do you 
believe that the U.S. Government is fully upholding our legal 
responsibilities under the Taiwan Relations Act?
    Mr. Lippert. Senator, my sense is that the administration 
is upholding their responsibilities under the Taiwan Relations 
Act.
    Senator Cornyn. What is that based on?
    Mr. Lippert. That is based on the decision to upgrade the 
F-16 As and Bs. That is based on the $12 billion in sales over 
the last 2 years to Taiwan, and that is based on the close 
coordination and consultation with the Taiwan Government.
    Senator Cornyn. Mr. Lippert, you know that upgrading the As 
and Bs does nothing to replace the obsolete F-5s and French 
Mirages. Do you think that sort of a dramatic decrease in the 
number of operating combat aircraft increases the risk for 
Taiwan, or do you think it is irrelevant?
    Mr. Lippert. My sense, Senator, is that reading the 
testimony of Assistant Secretary Campbell and Deputy Assistant 
Secretary Lavoy, that this decision was made on the As and Bs 
to get the most bang for the buck quickly, get the 160-plus 
aircrafts over to Taipei as soon as possible, and then go from 
there.
    Senator Cornyn. Mr. Lippert, during the upgrades of the As 
and Bs, there will be a period of time where the As and Bs will 
actually be out of service. When though Taiwan has As and Bs 
aircraft, there will be--and it is reflected here in the 
circled area around 2020. It is going to take a long time, and 
there will actually be even a reduction beyond the retiring F-
5s and French Mirages where the As and Bs will not be in 
service. Are you serious when you say you think that this 
provides Taiwan what they need in order to defend themselves?
    Mr. Lippert. Senator, what I am saying is that the 
administration, from what I have seen in testimony, felt that 
the best bang for the buck was to get the As and Bs over there 
as soon as possible.
    Senator Cornyn. You have no other views other than 
embracing the administration's position?
    Mr. Lippert. Senator, as I said in the first point, I would 
look forward to working with you and your office on this issue 
going forward.
    Senator Cornyn. Why are we trying to manage Taiwan's 
defense budget?
    Mr. Lippert. Could you clarify the question, Senator?
    Senator Cornyn. Yes. When Taiwan is ready to pay cash for 
American exported military aircraft, why would we deny them 
that ability? Is there any rationale you can see either from a 
commercial perspective or from a national security perspective 
why we would deny Taiwan those aircraft?
    Mr. Lippert. Again, Senator, all I can say is that the 
administration, from what I saw outside of the Government, made 
this decision consistent with the Taiwan Relations Act to try 
to get the best capability over there as soon as possible.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Graham.
    Senator Graham. Very quickly. Let us follow up with that 
line of reasoning. Senator Cornyn is the expert on this. I will 
certainly defer to him and may get him involved in this 
question.
    But they are willing to buy new F-16s. Is that right?
    Senator Cornyn. Yes, sir.
    Senator Graham. Okay. Why would we not sell a good friend 
the F-16s?
    Mr. Lippert. Again, Senator, the decision----
    Senator Graham. Best bang for whose buck? Best bang for the 
buck. Whose buck?
    Mr. Lippert. The bottom line here, Senator, is that----
    Senator Graham. We are not letting the People's Republic of 
China manage our military sales to Taiwan, are we?
    Mr. Lippert. Absolutely not.
    Senator Graham. Okay. Well then, when you say ``bang for 
buck'', is it our buck or their buck that you are worried 
about?
    Mr. Lippert. Senator, again, it was a question of getting 
160-plus aircraft over with similar capabilities as soon as 
possible versus the newer airframes.
    Senator Graham. It takes longer to get the newer airframes 
over there?
    Mr. Lippert. Senator, that is my understanding, but again, 
I am happy to dig into this and work with your office on it.
    Senator Graham. Okay. We are selling new F-16s to Iraq. Is 
that right?
    Mr. Lippert. I will take your word for it on that, sir.
    Senator Graham. Well, I am very curious. I do not know why 
we would not be willing to sell them the plane they want and 
think they need the most, and I hope mainland China is not 
dictating what we are doing.
    Mr. Sheehan, are you familiar with the special operations 
missions in Afghanistan?
    Mr. Sheehan. Yes, Senator, I am somewhat although I am not 
in a post and I am a civilian right now.
    Senator Graham. I understand.
    Back to Senator McCain's question. There were some 
disturbing reports coming out of Afghanistan today from 
President Karzai, and I just want to be on the record that I am 
very supportive of an enduring relationship with Afghanistan. I 
think it is in our national security interest to have a 
political, economic, military relationship that extends to 
2014. I have been open about the idea of having bases, joint 
bases, post 2014 with American aircraft, Special Operations 
Forces units, to make sure that the Afghan security forces can 
always win any engagement with the Taliban. I think you could 
do that with a footprint around 20,000 or less. But between now 
and that time--do you feel the insurgency is still alive and 
well in Afghanistan?
    Mr. Sheehan. Absolutely, Senator Graham.
    Senator Graham. What percentage of detainees coming into 
American law of war detention at Bagram Air Base comes from 
night raids? Do you know?
    Mr. Sheehan. I do not know the answer.
    Senator Graham. It is 82 percent. To the members of the 
committee, the night raids, which are Afghan partnered--are you 
familiar with that?
    Mr. Sheehan. Yes, Senator.
    Senator Graham. Every night raid has Afghan partners. We 
try to make sure they are the first to go through the door. Are 
you familiar with the fact that most night raids end with 
captures without a shot being fired?
    Mr. Sheehan. I do, Senator, and I recognize how important 
night raids are for our forces.
    Senator Graham. As a matter of fact, it is important not 
only for the Afghan people to defeat the insurgency, but it is 
important to make sure that the leadership of the insurgency is 
kept off balance and cannot mount attacks against our forces. 
Is that correct?
    Mr. Sheehan. Absolutely correct, Senator.
    Senator Graham. So you are of the mind set representing the 
special operations community that we are not ready yet, nor are 
the Afghans ready yet to do this without American assistance?
    Mr. Sheehan. My understanding, Senator, is that the Special 
Operations Forces that we have been working with for many years 
over there have greatly enhanced their capability. I have 
talked to special operators that say they are pretty good, but 
they are not quite ready.
    Senator Graham. How many helicopters do they have?
    Mr. Sheehan. I do not know the exact answers.
    Senator Graham. I can tell you almost none that can do 
this. So when you look at the equipment and the technology and 
the expertise, I think we need to be joint special operation, 
Afghan-U.S. night raid capable for a while to come.
    I just want our Afghan friends to understand that they have 
a political concern. We want you to have sovereignty. On the 
detention front, nothing would please me more to transfer the 
2,800 prisoners we have in American law of war detention to 
Afghan control, but there is no legal system capable of 
receiving them yet. As long as you have American troops at the 
level we are anticipating, we have an obligation here to 
protect them.
    That is sort of my editorial comment about detention and 
night raids. We do respect Afghan sovereignty. We want to 
enhance it but we want to do it in a way to make sure we defeat 
the insurgency, protect the Afghan people, and protect American 
soldiers and those who are fighting on our behalf.
    Now, when it comes to special operations missions 
throughout the world, if we captured a high-level al Qaeda 
operative tomorrow, a special operator, what are they supposed 
to do with him in terms of detention?
    Mr. Sheehan. Senator, right now, my understanding is they 
go to Bagram Air Force Base.
    Senator Graham. I would correct that. If we caught someone 
in Yemen tomorrow, we are not taking them to Bagram.
    Mr. Sheehan. Caught them in Afghanistan.
    Senator Graham. Yes.
    In Afghanistan, we have available Afghanistan confinement 
facilities at least for a little while longer. Do you think 
that is a long-term detention facility for the U.S. war on 
terror? Do you think the Afghans are going to allow Afghan soil 
to be the U.S. prison in the war on terror?
    Mr. Sheehan. Probably not, Senator.
    Senator Graham. Now, let us say a capture was made in 
Yemen, special operations. Where would we put that person? What 
would we do with them?
    Mr. Sheehan. I am not sure of the exact answer to that, 
Senator, at this point.
    Senator Graham. Do you not think humane detention should be 
available to every member of the military, particularly special 
operators because that takes them out of the dilemma of having 
to kill or release, that we need a coherent detention strategy?
    Mr. Sheehan. Absolutely, Senator.
    Senator Graham. It is hard to interrogate a dead man, is it 
not?
    Mr. Sheehan. Absolutely.
    Senator Graham. I would just urge you on behalf of the 
special operations community to push the administration and 
Congress to take a burden off their backs. It is not fair to 
these men and women who are on the tip of the spear to have to 
capture people, let them go or kill them when this country's 
intelligence gathering needs are going to be left behind if you 
cannot capture, detain, and interrogate. We need an answer to 
that question, do you not agree?
    Mr. Sheehan. Yes, Senator, and if confirmed, I will work 
closely with you and this committee to get a better answer to 
that question.
    Senator Graham. Is your understanding that Congress 
basically has prohibited transfers into the United States of 
terror suspects? That is the law?
    Mr. Sheehan. I am aware of that, yes, Senator.
    Senator Graham. Please work on this with us because this is 
an unacceptable outcome for our military, for our Intelligence 
Community, and for our own safety. Thank you very much.
    Chairman Levin. Let me just quickly ask one question. I can 
just see if I can ask Senator Graham this question. My 
understanding is that the prohibition is that terror suspects 
cannot be brought here from Guantanamo. Is that correct?
    Senator Graham. Yes, sir. If you captured someone in Yemen 
tomorrow, the idea of bringing them into the United States for 
civilian prosecution seems to be the only lane available 
because we are not using military commissions. We are not using 
Guantanamo Bay as the detention facility. My concern, Mr. 
Chairman, is that that is criminalizing the war, that if you do 
not use Guantanamo Bay as a confinement facility to hold and 
interrogate, then there is no other jail available other than 
American civilian institutions.
    Chairman Levin. Or a military commission inside the United 
States?
    Senator Graham. Yes, sir. Mr. Chairman, I think that idea 
of, say, bringing someone captured in Yemen to Charleston Air 
Force Base for a military commission is not going to fly 
because most of us believe that Guantanamo Bay is a very 
appropriate place to do the trials, detention, and 
interrogation.
    Here is the main concern, Mr. Chairman. I am not so much 
worried about the prosecution as I am holding these people long 
enough to gather good intelligence. Being on a Navy ship is an 
ad hoc approach. You cannot keep someone on a ship very long. 
We have learned that long-term detention sometimes is the most 
appropriate way to gather intelligence that would be humane, 
but the only place I know that would allow us to do that is 
going to be Guantanamo Bay. If you bring them back to the 
United States, Mr. Chairman, for civilian prosecutions, I 
believe that is criminalizing the war. You lose intelligence 
gathering. I just do not think Congress is going to allow this 
administration or a Republican administration to jump over 
Guantanamo Bay. I may be wrong, but we are a Nation without a 
jail, and that is not good for us.
    Chairman Levin. I just want to clarify factually there is 
no prohibition on bringing folks other----
    Senator Graham. No. You are right.
    Chairman Levin. I just wanted to know.
    Senator Graham. You are right, Mr. Chairman, but the fact 
is we are not doing it. We do not have a confinement facility 
because of executive policy, but there is no bar of bringing 
someone back in the United States for civilian trial captured 
overseas or for confinement at a military base inside the 
United States. But we both know one would lead to 
criminalization of the war and the second is going to be 
rejected by Congress. The fact that we are not doing it shows 
that the policy is broken. We are not doing any of the above.
    Chairman Levin. I happen to agree with you. Our policy is 
broken for many reasons, probably for different reasons, 
however, but----
    Senator Graham. Yes, but we are where we are.
    Chairman Levin. However, I just want to clarify that 
factually--and this is for your benefit, Mr. Sheehan--at the 
moment at least, there is no prohibition on bringing in folks 
that are captured into the United States either for a civilian 
trial or for a military commission trial and to be kept at a 
proper prison or jail, more accurately, on a military base. I 
think that factually is correct.
    Senator Graham. That is factually correct and we are not 
using any of those facilities, but that is factually accurate.
    Chairman Levin. Just in terms of your response, Mr. 
Sheehan, I wanted to clarify that.
    One quick question and that has to do with--and this is the 
point also that Senator Graham was making accurately, I 
believe, with my total support, and that has to do with these 
night raids. I also made a comment about those night raids in 
addition to what Senator Graham said about the night raids and 
the importance of them and the care with which they are done 
and how few people have actually been killed, if any Afghans. 
We have captured a lot of insurgents and it is important for 
intelligence purposes. But in addition to everything which he 
mentioned, I believe that we also have female troops that go in 
with those teams on those night raids. We are being sensitive 
to Afghan culture in many, many ways. I just wanted to add that 
to what Senator Graham was saying.
    Senator Graham. Mr. Chairman, you are dead right. We have 
learned night raids have been problematic for the Afghan 
people. Early on, we were doing them in probably less than an 
effective manner. We were creating more enemies than we were 
friends. But I would say that Admiral McCraven and the current 
task force commander, along with Generals Allen and Petraeus, 
have created a system, not only are we Afghan culturally 
sensitive, that when someone is called out, there is an Afghan 
partner doing the calling out. There are women associated with 
these raids to deal with the sensitivity of interrogating a 
woman. The amount of force being used now is just very small. 
They are very well coordinated with the Afghan legal system. 
Before we do a raid, we have a cell of Afghans who get to vote 
as to whether or not we go and take this target down. It is a 
very Afghan-centric system, but it cannot be done without 
American capability at this point.
    So when President Karzai says things like he said about 2 
hours ago or it was reported about 2 hours ago, it is not 
helpful. I think all of us--Senator Levin, McCain, and myself--
have a goal of transitioning to Afghan control. We have 2,800 
law of order detainees at Parwan Prison, the old Bagram Air 
Base prison, the most modern prison I have seen anywhere in 
that part of the world, more modern than most in South 
Carolina. We want to shift those prisoners under the Afghan 
control.
    If you will just bear with me a second, this is important 
for the committee to understand. We have a court panel. We have 
three panels of Afghan judges at the air base doing trials with 
our prison population. They do about 50 a month, but we are 
capturing 150 a month. Outside their criminal system, there is 
no way to detain people under Afghan law. So we are trying to 
create a new way forward under Afghan law to hold people as a 
threat to the state with ample due process. We are not there 
yet.
    One final thought about the Afghan legal system. It is very 
immature, and it would be a national security mistake for us to 
dump 2,800 people that we have caught on the battlefield into 
the Afghan legal system. They do not have the capacity or 
capability, but we are getting there. President Karzai, we 
share your goal but we are just not there yet.
    Chairman Levin. Thank you, Senator Graham.
    Senator McCain.
    Senator McCain. Mr. Chairman, I know we are short of time. 
We are due on the floor in just a few minutes, so I will try to 
be very brief.
    Mr. Carson, do you believe that water-boarding qualifies as 
torture in violation of the Geneva Conventions?
    Mr. Carson. These are complicated questions, but I do 
believe it does, Senator.
    Senator McCain. You really think that that is complicated?
    Mr. Carson. I think the definition of torture is a 
complicated question, but I do believe that water-boarding is a 
violation of the Geneva Conventions.
    Senator McCain. Mr. Ohlson?
    Mr. Ohlson. Yes, I do believe it is a violation of the 
Geneva Conventions.
    Senator McCain. Ambassador?
    Mr. Sheehan. Yes, sir.
    Senator McCain. On the issue of detention, we need a couple 
more answers from you, Ambassador Sheehan, on this whole issue 
of night raids and detention because we need to know your 
thoughts on it, and I hope you will get up to speed in response 
to some written questions that we will be submitting to you.
    Mr. Ohlson, I guess according to your testimony that 
despite all the information about the murder of Agent Brian 
Terry and the ATF significant involvement with Operation Fast 
and Furious, you knew nothing about it nor expressed any 
curiosity about it.
    Mr. Ohlson. I did not know about any connection to Fast and 
Furious. That is correct, Senator McCain.
    Senator McCain. I guess we were shocked that gambling was 
going on in the establishment.
    Mr. Lippert, it has been documented in numerous books and 
other reports that there were significant, shall we say, 
disconnects and leaks to the media concerning General Jones 
that was harmful to his reputation during your tenure at the 
NSC, but your testimony is you had nothing to do with any of 
it.
    Mr. Lippert. That is correct.
    Senator McCain. Finally, I will ask you again, do you 
believe that we could have succeeded in Iraq without the surge?
    Mr. Lippert. Senator, the surge was vital in our success in 
Iraq, and I was in Anbar Province 2007-2008 to witness the 
surge break the back of the insurgency firsthand. I think we 
are where we are because of the surge.
    Senator McCain. We are out of time I am afraid, Mr. 
Chairman, and I thank the witnesses. Thank you.
    Senator Graham. Mr. Chairman, could I just add one thing? 
You said that water-boarding violated the Geneva Convention. 
Would you agree that it violates the War Crimes Act and the 
Detainee Treatment Act that are now U.S. law? If you do not 
know the answer, go look at it, I mean, if you are unsure.
    Mr. Carson. I do not know the answer to those questions and 
do not know the specific provisions of the statutes. I believe 
it is bad policy in addition to a violation of the Geneva 
Convention. I would be happy to look at those laws as well to 
see----
    Senator Graham. The Detainee Treatment Act and the War 
Crimes Act. Okay? Is that the same with the rest of you?
    All of them nodded in the affirmative.
    Mr. Sheehan. Yes, Senator.
    Chairman Levin. Nodded in the affirmative that what?
    Senator Graham. That it does violate the War Crimes Act and 
it does violate the Detainee Treatment Act.
    Chairman Levin. I would hope they would nod in the 
affirmative, and Mr. Carson, I hope when you answer for the 
record--that you provide us an answer to the question for the 
record and you do that promptly.
    Mr. Carson. Certainly, Senator.
    [The information referred to follows:]

    The use of waterboarding against a person in the custody or under 
the effective control of the Department of Defense (DOD) or under 
detention in a DOD facility would violate section 1402(a) of the 
Detainee Treatment Act of 2005 (Public Law 109-163), which provides 
that ``No person in the custody or under the effective control of DOD 
or under detention in a DOD facility shall be subject to any treatment 
or technique of interrogation not authorized by and listed in the U.S. 
Army Field Manual on Intelligence Interrogation.'' Waterboarding is not 
one of the interrogation techniques authorized by and listed in the 
Army Field Manual on intelligence interrogation (i.e., Army Field 
Manual 2-22.3, ``Human Intelligence Collector Operations,'' September 
2006). Furthermore, paragraph 5-75 of the Army Field Manual 
specifically prohibits waterboarding if used in conjunction with 
intelligence interrogations. This prohibition is reiterated in DOD 
Directive 3115.09, which establishes Department-wide policy for 
intelligence interrogations.
    DOD does not use waterboarding in conjunction with intelligence 
interrogations and, therefore, has not considered whether its use would 
violate the War Crimes Act (18 U.S.C. Sec. 2441). Waterboarding is 
prohibited by the Detainee Treatment Act, DOD policy, and the Army 
Field Manual.

    Chairman Levin. I want to thank my colleagues and thank you 
all for your presence, and I thank your families.
    We will stand adjourned.
    [Whereupon, at 10:52 a.m., the committee adjourned.]

    [Prepared questions submitted to Michael A. Sheehan by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the special operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
or special operations reform provisions? If so, what areas do you 
believe might be appropriate to address in these modifications?
    Answer. No. The Act and current special operations authorities have 
served the Department and our Nation well and have enhanced the 
Department's capabilities to respond when called, such as in Operation 
Enduring Freedom. If confirmed, I will make proposals for modifications 
if and when required.

                                 DUTIES

    Question. Section 138(b)(4) of title 10, U.S.C., describes the 
duties and roles of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict (ASD(SO/LIC)).
    What is your understanding of the duties and functions of the 
ASD(SO/LIC)?
    Answer. The ASD(SO/LIC) is the principal civilian advisor to the 
Secretary of Defense on special operations and low-intensity conflict 
matters. After the Secretary and Deputy Secretary, the ASD(SO/LIC) is 
the principal special operations and low-intensity conflict official 
within the senior management of the Department of Defense (DOD). The 
ASD(SO/LIC) has as his principal duty overall supervision (to include 
oversight of policy and resources) of special operations and low-
intensity conflict activities. In addition, the ASD(SO/LIC) oversees 
DOD's counternarcotics policies and resources, humanitarian assistance 
policies, strategies for building partner capacity, and stability 
operations policies in accordance with the Under Secretary of Defense 
for Policy's priorities and guidance.
    Question. What DOD activities are currently encompassed by the 
Department's definition of special operations and low-intensity 
conflict?
    Answer. Special operations and low intensity conflict activities, 
as defined in title 10 U.S.C. section 167, include direct action, 
strategic reconnaissance, unconventional warfare, foreign internal 
defense, civil affairs, psychological operations, counterterrorism, 
humanitarian assistance, theater search and rescue, and such other 
activities as may be specified by the President or Secretary of 
Defense.
    Question. If confirmed, what changes, if any, in the duties and 
functions of ASD(SO/LIC) do you expect that the Secretary of Defense 
would prescribe for you?
    Answer. I do not currently expect any changes to the duties and 
functions assigned.
    Question. In your view, are the duties set forth in section 
138(b)(4) of title 10, U.S.C., up to date, or should changes be 
considered?
    Answer. I do not believe any changes are needed at this time.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASD(SO/LIC)?
    Answer. No.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my background in operational units, working 
counternarcotics strategy on the NSC staff, as Coordinator for 
Counterterrorism (Ambassador-at-Large), as Assistant Secretary General 
for the U.N.'s Department of Peacekeeping, as Deputy Commissioner of 
Counter Terrorism for the New York Police Department, and as an analyst 
of the best methods for combating terrorism at New York University 
(NYU) and West Point provide me with the necessary foundation for this 
position.
    In addition, I served as an Active Duty Army Special Forces officer 
in a counterterrorism unit (as a detachment commander of an assault 
team) and as a counterinsurgency advisor in El Salvador.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. If confirmed, I will perform my duties to provide overall 
supervision of special operations activities and advise to the 
Secretary of Defense and the Under Secretary of Defense for Policy 
regarding special operations activities and low-intensity conflict.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I will provide advice and support to the 
Deputy Secretary on special operations, stability operations, 
counternarcotics, and low-intensity conflict capabilities development 
and employment, among other matters.
    Question. The Under Secretary of Defense for Policy.
    Answer. If confirmed, I will work very closely with the Under 
Secretary of Defense for Policy my advice on matters pertaining to 
special operations, stability operations, counternarcotics, and low-
intensity conflict capabilities, among other matters.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Special operations and intelligence are mutually 
supporting, so, if confirmed, I will work closely with the Under 
Secretary of Defense for Intelligence.
    Question. The Assistant Secretary of Defense for International 
Security Affairs, the Assistant Secretary of Defense for Asian and 
Pacific Security Affairs, and the Assistant Secretary of Defense for 
Homeland Defense and Americas' Security Affairs.
    Answer. If confirmed, I expect to work closely with the regional 
Assistant Secretaries of Defense in the Office of the Under Secretary 
of Defense for Policy, providing advice regarding special operations 
and stability operations that are ongoing or in the planning stage. We 
would also work together on policies to build partner capacity, 
counternarcotics, and combat global threats. I would also anticipate 
working very closely with the Assistant Secretary of Defense for Global 
Security Affairs on our counterproliferation and cyber policy efforts.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. Successful policy and resource oversight of special 
operations requires close coordination and collaboration with the 
Chairman of the Joint Chiefs of Staff, the Chiefs of Staff, and the 
Chairman's staff. If confirmed, I plan to maintain a close working 
relationship with the Chairman, the Chiefs, and the Chairman's staff.
    Question. The Service Secretaries and Service Chiefs.
    Answer. If confirmed, I will work with the Military Department 
Secretaries and Service Chiefs to ensure that the requirements to 
organize, train, and equip personnel and units that enable or feed 
Special Operations Forces are met and that maintaining the capability 
to perform stability operations is a priority. I would also work with 
them to ensure adequate resourcing of Service-common requirements and 
infrastructure for Special Operations Forces.
    Question. Commander, U.S. Special Operations Command (SOCOM).
    Answer. The Commander, SOCOM and the ASD(SO/LIC) must be partners 
in defining and meeting the needs of our Special Operations Forces. If 
confirmed, I am committed to maximizing that partnership and providing 
SOCOM with a senior civilian advisor in accordance with the ASD(SO/
LIC)'s statutory requirement to oversee the policy and resources for 
special operations activities.
    Question. The commanders of the Service SOCOMs.
    Answer. If confirmed, I will work closely with the Service special 
operations commands to ensure they have the policies and resources 
needed to develop and provide the capabilities needed by the Commander, 
SOCOM and the regional combatant commanders.
    Question. The regional combatant commanders.
    Answer. The regional combatant commands are at the forefront of the 
global fight against terrorists and violent extremists. They are 
responsible for maintaining a forward posture to deter and dissuade 
adversaries and assure and build the capabilities of our allies. If 
confirmed, I will work closely with the regional combatant commands in 
all of these areas.
    Question. The Director of National Intelligence.
    Answer. As mentioned above, special operations and intelligence are 
mutually supporting, so, if confirmed, I will work closely with the 
Director of National Intelligence and his subordinates.
    Question. The Director of Central Intelligence.
    Answer. Again, special operations and intelligence are mutually 
supporting, so, if confirmed, I will work closely with the Director of 
Central Intelligence and his subordinates.
    Question. The Coordinator for Counterterrorism, Department of 
State.
    Answer. The Department of State is a key partner in the fight 
against global terrorists and violent extremists. As the former 
Coordinator (Ambassador-at-Large) for Counterterrorism at the 
Department of State, I would hope to find opportunities to further 
integrate and coordinate our efforts with the Coordinator.
    Question. The National Security Council.
    Answer. All aspects of the ASD(SO/LIC)'s responsibilities require 
interagency engagement, coordination, and cooperation. The ASD(SO/LIC) 
represents DOD in the interagency on relevant matters including 
counterterrorism, counternarcotics, stability operations, partner 
capacity building, and other relevant SO/LIC issues.
    Question. The Director, National Counterterrorism Center (NCTC).
    Answer. Special Operations Forces (SOF) activities are central to 
counterterrorism; the NCTC helps ensure coordination of all U.S. 
Government counterterrorism activities. If confirmed, I will maintain 
ASD SO/LIC's role as the primary Office of the Secretary of Defense's 
interface on SOF and counterterrorism (CT) matters.

                    MAJOR CHALLENGES AND PRIORITIES

    Question. In your view, what are the major challenges confronting 
the ASD(SO/LIC)?
    Answer. In addition to ensuring adequate resources to provide the 
special operations and stability operations capabilities needed by the 
Nation, the ASD(SO/LIC) must also provide policies and resources to 
keep the pressure on al Qaeda and its affiliates worldwide as we draw 
down force structure in Iraq and Afghanistan. It is vital that the U.S. 
Government remain focused on denying al Qaeda and its affiliates the 
``sanctuary of impunity'' globally.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. As a veteran of the interagency process, if confirmed, I 
plan to keep the issue front and center--and to ensure that programs 
key to effective counterterrorism operations are properly supported--
both politically and with resources.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(SO/LIC)?
    Answer. If confirmed, I would continue to prioritize the defeat of 
al Qaeda and like-minded extremists, dismantling their ability to 
attack us at home or our interests abroad.
    I would also focus on sustaining the warfighting capability of SOF 
warriors. In the past 10 years, they have developed enormous capability 
both to fight terrorists and to build partner capacity which must be 
sustained for the long haul; terrorism will not go away any time soon 
and the need for effective allies and partners is critical to our 
national security.
    Question. Former ASD(SO/LIC) Michael Vickers was quoted as saying 
``I spend about 95 percent of my time on operations'' leaving the rest 
of his time for ``Service Secretary-like'' activities including policy, 
personnel, organizational, and development and acquisition decisions 
impacting Special Operations Forces.
    Would you anticipate a similar division of time as ASD(SO/LIC)?
    Answer. Mike Vickers did a great job as the ASD(SO/LIC). If 
confirmed, I will certainly evaluate his approach as I take this job, 
but would expect to spend more time on Military Department Secretary-
like activities as we face a period of declining DOD budgets.

       CIVILIAN OVERSIGHT OF THE U.S. SPECIAL OPERATIONS COMMAND

    Question. The legislation creating the SOCOM assigned extraordinary 
authority to the commander to conduct some of the functions of both a 
military service and a unified combatant command.
    Which civilian officials in the DOD exercise civilian oversight of 
the ``service-like'' authorities of the Commander, SOCOM?
    Answer. Per title 10 U.S.C. Sec. 138 and DOD Directive 5111.10 (in 
accordance with USD(P) priorities and guidance), the ASD(SO/LIC) is the 
principal civilian oversight for all special operations activities. 
Other DOD civilian officials also exercise oversight in some capacity:

        <bullet> USD(I) coordinates on intelligence issues
        <bullet> USD(AT&L) coordinates on acquisition issues
        <bullet> USD(P&R) coordinates on personnel policies such as 
        SOF-unique incentive packages
        <bullet> USD(Comptroller) coordinates on SOF budget and year-
        of-execution program issues
        <bullet> Military Department Secretaries coordinate on SOF 
        manpower issues
        <bullet> Director, CAPE, coordinates on SOF Program development 
        and issues

    Question. In your view, what organizational relationship should 
exist between the ASD(SO/LIC) and the Commander, SOCOM?
    Answer. ASD(SO/LIC) provides civilian oversight of all special 
operations matters as required by title 10 U.S.C. Sec. 138. As such, 
the ASD(SO/LIC) provides oversight of special operations policy and 
resources matters and advice to implement Secretary of Defense and 
USD(P) priorities. The ASD(SO/LIC) is a voting member of SOCOM's Board 
of Directors for program guidance and decisions. The relationship with 
the Commander, SOCOM should be collaborative and cooperative to develop 
the best possible forces and employ them effectively.
    Question. What should be the role of the ASD(SO/LIC) in preparation 
and review of Major Force Program 11 and the SOCOM's Program Objective 
Memorandum?
    Answer. The ASD(SO/LIC) provides policy oversight for the 
preparation and justification of the SOCOM program and budget. The 
ASD(SO/LIC) co-chairs the SOCOM Board of Directors--the SOCOM resource 
decision forum. If confirmed, I will work closely with the Commander, 
SOCOM, to ensure that SOCOM funding sustains a ready, capable force, 
prepared to meet this new era's challenges.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
research and development and procurement functions of the SOCOM?
    Answer. The appropriate role of ASD(SO/LIC) is to provide policy 
oversight in resolving special operations acquisition issues. As the 
lead OSD official for SOF acquisition matters, the ASD(SO/LIC) 
represents SOF acquisition interests within DOD and before Congress. 
The responsibilities and relationships between the ASD(SO/LIC) and the 
Commander, SOCOM are defined and described in a Memorandum of Agreement 
between the ASD and Commander, SOCOM. The ASD directs and provides 
policy oversight to technology development programs that address 
priority mission areas to meet other Departmental, interagency, and 
international capability needs (e.g., the Combating Terrorism Technical 
Support Office).
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
operational planning of missions that involve Special Operations 
Forces, whether the supported command is SOCOM, a Geographic Combatant 
Command, or another department or agency of the U.S. Government?
    Answer. The ASD(SO/LIC) serves as the principal advisor to the 
Under Secretary of Defense for Policy and the Secretary of Defense for 
all aspects of employment, deployment, and oversight of special 
operations and counterterrorism capabilities. The ASD(SO/LIC) provides 
policy oversight of SOCOM's mission planning and Geographic Combatant 
Commanders' employment of SOF to ensure compliance with law and DOD 
priorities. The ASD(SO/LIC) coordinates deployment authorities and 
plans involving SOF within DOD and with interagency partners as 
required.

           SPECIAL OPERATIONS COMMAND ACQUISITION AUTHORITIES

    Question. SOCOM is unique within DOD as the only unified command 
with acquisition authorities and funding. Further, the Commander of 
SOCOM is the only uniformed commander with a subordinate senior 
acquisition executive.
    If confirmed, how would you ensure SOCOM requirements are 
adequately vetted and balanced against available resources before 
moving forward with an acquisition program?
    Answer. The ASD(SO/LIC) is closely involved in all facets of the 
SOCOM Planning, Programming, Budgeting and Execution system, providing 
oversight of these matters. Additionally, through the annual program 
budget review process, the ASD(SO/LIC) is able to ensure that SOCOM's 
priorities and resource allocation are in alignment with the 
Department's strategic and policy imperatives.
    Question. What role can SOCOM's development and acquisition 
activities play in broader Service and DOD efforts?
    Answer. SOCOM can continue to serve as an incubator for developing 
new equipment and capabilities that initially are for special 
operations-specific needs but often transition to the rest of the 
Services. Some of the SOF technologies that have made their way to the 
Services include the MH-47 Chinook helicopter common avionics 
architecture system cockpit, an extended service life wing for the C-
130, the MK48 lightweight machine gun, software-defined tactical 
radios, and an improved sniper sight. Particularly noteworthy is 
SOCOM's ability to conduct rapid evaluations of technology, systems, 
and concepts of operations, and the ability to integrate emerging off-
the-shelf technologies.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
DOD research, development and acquisition programs?
    Answer. If confirmed, I would continue to support SOCOM's important 
initiatives in this area, particularly the regularly-convened SOCOM-led 
``Acquisition Summits'' with OSD, drawing together SOCOM, USD(AT&L), 
and the Service Acquisition Executives where all elements discuss 
acquisition issues of common interest. As SOCOM requirements are 
provided to the Joint Staff for inclusion in the Joint Requirements 
Knowledge Management System, I am comfortable that SOCOM's efforts are 
synchronized with the DOD process.
    Question. If confirmed, how would you ensure sufficient resources 
are dedicated to the development of special operations-unique 
platforms, when required?
    Answer. As noted above, ASD(SO/LIC) is closely involved and 
integrated with SOCOM's planning, resourcing, and execution. 
Additionally, the ASD(SO/LIC) attends the SOCOM Board of Directors 
meetings, which allows him to ensure that he is aware of matters of 
concern and import to SOCOM and its subordinate commands. Naturally, 
advocating for steady and predictable resourcing of SOCOM is the 
principal means I would use, if confirmed, to oversee the investment 
strategy in these capabilities. If confirmed, I will also provide 
advice and support to the Under Secretary of Defense for Policy as she 
sits on critical resource decision-making bodies.
    Question. If confirmed, what metrics will you use to determine the 
effectiveness of SOCOM technology development investments and whether 
SOCOM is investing sufficient resources in these efforts?
    Answer. SOCOM has created a series of technology roadmaps that are 
effective in identifying promising solutions to meet requirements. 
These roadmaps have quantifiable metrics (e.g., cost, schedule, 
performance, and technology readiness) embedded in them and allow the 
ASD(SO/LIC) to monitor progress and identify obstacles that may require 
Department-level involvement.
    Question. If confirmed, how will you ensure that SOCOM has an 
acquisition workforce with the skills, qualifications, and experience 
needed to develop and manage its acquisition and research and 
development programs?
    Answer. If confirmed, I would support Admiral McRaven's efforts to 
manage the SOF acquisition workforce, which is similar to the process 
used by the Service Acquisition Executives. SOCOM's acquisition 
workforce experts are professionally trained and certified, and have 
substantial experience in the SOF-unique processes needed to meet the 
equipping needs of SOF. I would also support SOCOM's efforts with 
USD(AT&L) to expand its organic acquisition workforce, as well as to 
create a unique identifier for SOF acquisition positions.

                SPECIAL OPERATIONS PERSONNEL MANAGEMENT

    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of Special 
Operations Forces. One proposal would modify section 167 of title 10, 
U.S.C., to change the role of the SOCOM Commander from ``monitoring'' 
the readiness of special operations personnel to ``coordinating'' with 
the services on personnel and manpower management policies that 
directly affect Special Operations Forces.
    What is your view of this proposal?
    Answer. Changing section 167 of title 10, U.S.C., to reflect the 
word ``coordinating'' rather than ``monitoring'' would give SOCOM more 
influence over Service personnel policies that affect SOF retention. 
However, I believe that additional coordination and study should be 
done within the Department to fully understand the impact of this 
proposal.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The previous two Quadrennial Defense Reviews have 
mandated significant growth in our Special Operations Forces and 
enablers that directly support their operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. I believe that completing the directed growth in SOF and 
Combat Support and Combat Service Support personnel directed in the 
2006 and 2010 QDRs would posture SOCOM to conduct the range of 
anticipated operations effectively to meet future requirements.
    Question. In your view, how can the size of Special Operations 
Forces be increased, while also maintaining the rigorous recruiting and 
training standards for special operators?
    Answer. Experience has shown that SOF manpower growth of 3 to 5 
percent annually can be sustained and will not dilute the force or 
outpace the required training and support structure. In my view, SOCOM 
has done a magnificent job of adjusting its processes to maintain the 
quality of SOF operators and support personnel during this current era 
of SOF growth.

                      SPECIAL OPERATIONS MISSIONS

    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. As a result of the 2010 QDR, the Department is building the 
capacity and capabilities of the general-purpose forces (GPF) to 
conduct security force assistance to develop the capacity and 
capabilities of foreign security forces in permissive or semi-
permissive environments. The GPF capability to train, equip and advise 
large numbers of foreign security forces could allow SOF to focus on 
more complex missions. However, I believe that SOF must maintain a very 
robust capability to train, equip, and advise foreign security forces 
as part of ensuring SOF capability to conduct operations in 
politically-sensitive environments, ensuring access for other SOF 
activities, and ensuring the ability to train, equip and advise either 
Special Operations Forces or irregular forces.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. I do not currently foresee any additional missions that 
SOCOM should assume. I believe however, that SOF-led approaches to 
counterinsurgency are worth exploring. Counterinsurgency operations 
conducted by the United States will, more often than not, be conducted 
indirectly. SOF specializes in the indirect approach. I believe that 
employing unconventional warfare against non-state actors holds 
considerable promise as an expanded SOCOM mission area.

              LANGUAGE AND CULTURAL AWARENESS CAPABILITIES

    Question. Deployed special operations personnel remain heavily 
concentrated in the U.S. Central Command (CENTCOM) theater of 
operations, including many who have been deployed outside of their 
regional area of expertise.
    Are you concerned that the language and cultural skills among 
Special Operations Forces have been degraded because of repeated 
deployments outside their regional area of expertise?
    Answer. Rotational deployments of SOF units not regionally aligned 
to the CENTCOM area of responsibility have indeed taken a toll on the 
language, regional expertise, and culture capabilities of those units 
for their aligned regions. Current operations tempo limits the ability 
to train SOF for their primary areas of responsibility while still 
preparing for the next CENTCOM deployment. This is being addressed to a 
degree by SOCOM force structure growth and requires continued 
monitoring.
    Question. If so and if confirmed, what, if anything, would you do 
to ensure these unique skills are adequately maintained?
    Answer. I support recent SOCOM initiatives to implement higher 
requirements for language capability as well as to improve the training 
processes for its components. If confirmed, I would seek to continue to 
pursue several key policy issues in close coordination with SOCOM, 
including: native/heritage recruiting, valuing language and regional 
capabilities in selections and promotions, language testing and 
incentives, maintaining DOD-funded Defense Language Institute 
detachments at some of our components, adding SOF-specific school 
billets and funding from the Services for foreign education, and 
encouraging the Services to award Intermediate Level Education and 
Senior Level Education equivalency for Foreign Professional Military 
Education programs.

             MARINE CORPS FORCES SPECIAL OPERATIONS COMMAND

    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a subordinate component command to SOCOM established in 2005.
    What is your assessment of the progress made in standing up and 
growing MARSOC, and what do you consider to be the principal issues 
that need to be addressed to improve its operations?
    Answer. I believe that the establishment of MARSOC has been a 
resounding success, largely due to the commitment of the Marine Corps 
and Navy. My initial assessment is that the planned Combat Service and 
Combat Service Support growth must be fully implemented to support most 
effectively MARSOC's full spectrum of capabilities.
    Question. What unique attributes, if any, does MARSOC contribute to 
the capabilities of U.S. Special Operations Forces?
    Answer. Incorporating the wonderful heritage, spirit, expeditionary 
mindset, and ``can do'' attitude of the U.S. Marine Corps into SOCOM 
has been an extremely positive thing, in my view. MARSOC has led the 
effort to integrate intelligence and operations completely at the 
lowest possible level, and MARSOC's distinctive command and control 
procedures have created dynamism in the SOF community.
    Question. The Marine Corps have approved a primary military 
occupational specialty for enlisted marines trained as special 
operators allowing these personnel to remain in MARSOC for their 
professional careers.
    Do you believe officers should have a similar opportunity as 
enlisted marines to serve the duration of their military career in 
MARSOC rather than rotating through the command as they do currently?
    Answer. As a former Army Special Forces officer, I recall the 
process that the Army went through to establish Special Forces as a 
separate officer career field. One lesson from that experience was that 
such transitions occur during the maturation of an organization, and 
that it is probably too early to decide definitively how MARSOC-
qualified officers should be managed long-term. I am confident that the 
Marine Corps will regularly review this topic and conduct the necessary 
study and analysis to determine if it is appropriate to make a change.

                MILITARY INFORMATION SUPPORT OPERATIONS

    Question. DOD recently announced that it was discontinuing use of 
the term ``Psychological Operations'' in favor of the term ``Military 
Information Support Operations (MISO).''
    Do you support this change? Why or why not?
    Answer. Yes. Today, for some, the terms ``Psychological 
Operations'' or ``PSYOP'' unfortunately conjure up images of 
propaganda, lies, or deception. These inaccurate perceptions limit the 
willingness to employ MISO personnel in some areas where they could be 
extremely effective.
    To date, there are some indications that the name change has 
allowed for some increases in acceptance, cooperation and coordination 
regarding MISO activities throughout the U.S. Government and with our 
partner nations.
    Question. What operational and doctrinal impacts do you believe 
such a change will have?
    Answer. Changing the term ``Psychological Operations'' to 
``Military Information Support Operations'' throughout military 
doctrine, manuals, and other documents is one of semantics. There were 
no directed changes in doctrine or operational employment of the force.
    Question. Do you believe the Armed Forces have sufficient personnel 
and other assets to conduct the range of MISO being asked of them?
    Answer. MISO forces and assets, like the rest of the military, are 
stretched thin with the ongoing operational requirements to support 
deployed combat forces. MISO forces are low-density forces and are 
among the most deployed forces in the U.S. military. Under Admiral 
Olson, SOCOM conducted several reviews to address this issue. I know 
Admiral McRaven is committed to following through on this with the 
objective of enhancing DOD's MISO capabilities. One of the first 
efforts toward increasing the MISO capability is the reorganization of 
SOCOM MISO forces. This reorganization will reduce redundancy in 
commands and allow for the repurposing of numerous positions from staff 
to operational capability.
    Question. Al Qaeda and affiliated violent extremist groups work 
hard to appeal to both local and foreign populations. The composition 
and size of these groups in comparison to the U.S. Government permits 
them to make policy decisions quickly.
    Do you believe DOD is organized to respond quickly and effectively 
to the messaging and influence efforts of al Qaeda and other affiliated 
terrorist groups?
    Answer. DOD is well positioned and organized from the strategic 
level to the tactical level to respond quickly to al Qaeda and its 
affiliates when a quick response is required. But unlike kinetic 
warfare, effectiveness in the war of ideas does not necessarily lie in 
outpacing the tempo of our enemies. A steady drumbeat that clearly 
articulates U.S. policy over time, anchored in the bedrock truth, best 
serves our national interests. DOD takes its lead from the President, 
and relies heavily on the Department of State, in reenforcing the 
Nation's message. In doing so, DOD has been extremely effective in 
face-to-face encounters, through a broad array of engagements with our 
allied, partner, and host nations on a daily basis. As a representative 
example, DOD reinforces its engagements with printed products, such as 
Geographic Combatant Commands' Regional Magazines and the foreign 
engagement websites. These mediums provide DOD a broad range of 
options.
    In addressing al Qaeda, DOD seeks collectively to identify and 
exploit their miscues and errors, and force them into a reactive role. 
In that way, DOD determines the appropriate level of response and 
quickly coordinates that response with other agencies.
    Question. What do you believe is the appropriate role for Military 
Information Support Teams (MIST) in these activities?
    Answer. The MIST is the MISO equivalent of the Special Forces 
operational detachment. This is the element that executes MISO at the 
operational and tactical level. MISTs develop messages to counter 
hostile information and propaganda, in a manner that is culturally 
relevant and acceptable to the host national population. Such messaging 
is closely coordinated with the U.S. Embassy. MISTs also can maintain 
awareness of the information environment by identifying current trends 
in local and regional media reporting, detecting hostile messaging, and 
measuring local populace reaction.

                    MILITARY INTELLIGENCE OPERATIONS

    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the Intelligence Community?
    Answer. In my view, Special Operations Forces (SOF) intelligence 
operations are complementary and mutually supporting to those carried 
out by the Intelligence Community (IC). These operations comply with 
the policies and regulations guiding DOD and interagency activities. 
One key distinction between SOF intelligence operations and those 
conducted by the IC is the pace of these activities. SOF have refined 
the Find, Fix, Finish, Exploit, Analyze (F3EA) intelligence cycle to 
support the rapid cycle rate of special operations activities. The F3EA 
process is now being migrated to conventional forces. SOF have also 
placed a premium on sensitive site exploitation and the collection and 
registration of biometrics data from the battlefield.
    SOCOM elements have also developed a series of joint interagency 
task force nodes, both in deployed areas and in the United States, that 
bring together expertise from all our interagency partners. SOF 
maximizes interagency contributions through reachback, de-confliction, 
and coordination of activities between agencies. This improves our 
forces' chances to get inside the enemy's decision cycle.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by Special Operations Forces are coordinated 
adequately with other activities carried out by those in the 
Intelligence Community?
    Answer. I believe that interagency collaboration is the most 
important contributing factor to many of SOF's achievements. As Admiral 
McRaven has stated, SOCOM will continue to follow all applicable 
Intelligence Community directives, report required sensitive activities 
to the USD(I), and maintain the robust intelligence oversight processes 
they have established with their Inspector General, Staff Judge 
Advocate, and the Command Oversight Review Board.
    If confirmed, I will oversee, maintain, and build upon the 
important relationships SOCOM--as a key member of DOD's Intelligence 
Community--has developed with the Federal intelligence and law 
enforcement agencies. Additionally, I am aware that SOCOM continues to 
employ SOF liaison officers, called Special Operations Support Team 
members, effectively to coordinate with agencies in the national 
capital region.

                        CIVIL AFFAIRS OPERATIONS

    Question. Civil Affairs activities carried out by U.S. Special 
Operations Forces in partnership with host nation personnel play an 
important role in developing infrastructure, supporting good governance 
and civil societies, and providing humanitarian assistance, including 
medical and veterinary services to needy populations.
    In your view, does SOCOM have sufficient personnel and resources to 
conduct the range of Civil Affairs missions required for today's 
operations?
    Answer. I understand that SOCOM and the Army have determined that 
current and already programmed Civil Affairs (CA) force structure 
provides sufficient capacity within the CENTCOM AOR and other combatant 
command generated Theater Security Cooperation requirements. Any 
capability shortfalls within the CA force are being addressed in detail 
by the respective Military Departments and SOCOM, and solution sets are 
being provided through the CA Capabilities Based Assessment. 
Implementation of those solutions, by the Military Departments, will 
eliminate much of the existing capability gaps. Ensuring the Department 
has the correct force capacity to meet current requirements will be one 
of my priorities, and if confirmed, I would resist the temptation to 
create a new capability or increase capacity when it may suffice simply 
to enhance capabilities within current force structure, through 
additional, enhanced, or new training; structure and manning updates; 
and progressive equipping coupled with continued evolution of the 
roles, missions, and responsibilities of the current CA force.
    Question. Civil Affairs activities are most effective when 
coordinated with other U.S. Government efforts, most notably those 
carried out by U.S. Agency for International Development (USAID).
    If confirmed, how would you ensure Civil Affairs activities by 
special operations personnel are integrated into larger U.S. Government 
efforts?
    Answer. I understand that SOCOM employs two significant tools to 
ensure effective interagency coordination: the SOCOM Interagency Task 
Force (IATF), and an Interagency Partnership Program. The IATF 
identifies discrete problems and opportunities to foster interagency 
collaboration by leveraging unique interagency authorities, resources, 
and capabilities in support of the mission to expose, disrupt, 
dismantle, and defeat threats. This capability is available to the CA 
force as a reach-back mechanism for interagency coordination.
    The Interagency Partnership program established and maintains a 
network of SOCOM personnel in the national capital region to facilitate 
the synchronization of planning for global operations against terrorist 
networks and addressing other emerging national security concerns in 
coordination with appropriate U.S. Government agencies, the Joint 
Staff, OSD, combatant commands, combat support agencies, the military 
departments, and others. Two CA officers are currently in the USAID 
Military Affairs office. These mechanisms seek to ensure that SOF CA 
remains integrated into key U.S. Government efforts.
    Question. MISOs can have an amplifying effect on Civil Affairs 
activities by actively promoting the efforts of the U.S. military and 
host nation and by communicating truthful messages to counter the 
spread of violent extremist ideology among vulnerable populations.
    If confirmed, how would you ensure Civil Affairs and MISOs are 
adequately coordinated to achieve a maximum impact?
    Answer. If confirmed, I would support SOCOM in its role as joint 
proponent for both CA and MISO. This will enable unity of effort and 
the coordinated execution of CA and MISO. CA and MISO force 
representation at the operational and strategic levels will also remain 
critical in achieving a coordinated impact. At the tactical and 
operational levels, (e.g., country teams at the U.S. Embassies where CA 
and MISO are working), this is accomplished as a matter of course. CA 
and MISO personnel receive similar training and understand that their 
specialties are mutually supporting.

                SPECIAL OPERATIONS ENABLING CAPABILITIES

    Question. The previous Commander of SOCOM described the ``non-
availability'' of force enablers as SOCOM's ``most vexing issue in the 
operational environment.'' The 2010 QDR sought to balance previously 
mandated growth in Special Operations Forces with additional enabling 
capabilities.
    What do you believe are the greatest shortages in enabling 
capabilities facing Special Operations Forces?
    Answer. Shortages of enabling capabilities for SOF are often 
similar to the shortage of high-demand enablers that challenge the rest 
of the deployed forces (e.g., intelligence, explosive ordnance 
disposal, communications, medical, security).
    SOCOM's organic enabling capabilities are those that provide SOF 
the ability to self-sustain for short durations while maintaining the 
agility to deploy forces quickly in support of the combatant 
commanders. Longer-term support of Special Operations Forces, by 
doctrine, and except under special circumstances, becomes the 
responsibility of each Service's theater logistic command and control 
structure.
    Question. Do you believe additional enabling capabilities, beyond 
those mandated by the QDR, are required to support Special Operations 
Forces?
    Answer. The QDR mandated an increase in the number of organic 
combat and combat service support assets available to both the Army and 
Navy special operations units. These capabilities include logisticians, 
communications assets, forensic analysts, information support 
specialists, and intelligence experts. DOD is slowly realizing this 
programmed growth, and it will make a difference in how SOF units are 
supported. The QDR only addresses growth within SOCOM, however, SOCOM 
will always rely on the Services for some level of support as addressed 
in the previous question.
    Question. Do you believe additional enabling capabilities should be 
grown within SOCOM or provided in support of Special Operations Forces 
by the Services?
    Answer. I believe both should occur, but the preponderance of those 
support capabilities should remain in the conventional force and be 
provided to SOF through the habitual association of Service Combat 
Support and Combat Service Support capabilities with the SOF units they 
primarily support. Currently the responsibility of the conventional 
force to provide sustainment support to SOF is not clearly defined or 
specified. At times, this limits SOF's ability to sustain operations. 
SOCOM is currently working with its components, the Services, and the 
Joint Staff to develop the Special Operations Force Generation process 
to improve how it requests these critical capabilities. If confirmed, I 
will work with SOCOM to define enabler requirements more clearly, and 
to identify them farther in advance to allow the Services to plan for 
the employment of habitually associated units in support of SOF. A 
reduction of SOF emergent requests and an increase in habitually 
associated Service-provided capabilities will go a long way toward 
resolving this problem.

                        RENDER SAFE PROFICIENCY

    Question. The proliferation of weapons of mass destruction is a 
growing and especially concerning threat to our Nation. Select special 
operations units are assigned the task of interdicting and rendering-
safe weapons of mass destruction should they ever fall into the wrong 
hands.
    If confirmed, how would you ensure render-safe capabilities are 
adequately maintained by special operations units who may currently be 
heavily engaged in offensive kill/capture missions against high value 
targets in Afghanistan and elsewhere?
    Answer. The National Strategy for Counterterrorism highlights the 
danger of nuclear terrorism as being the single greatest threat to 
global security. I understand that, even amidst a sustained focus on 
offensive operations to capture/kill high-value targets in Afghanistan 
and elsewhere, the Department ensures that its render-safe capabilities 
are adequately maintained. If confirmed, I will work closely with SOCOM 
on this important issue. I will carefully monitor and assess the impact 
of our operational tempo on DOD's render-safe capabilities and ensure 
that these capabilities are maintained.
    Question. Do you believe additional render-safe capabilities are 
needed within SOCOM?
    Answer. Not at this time, though I have not yet had the opportunity 
to examine these capabilities in detail. I believe SOCOM has the 
capabilities now to accomplish its render-safe mission.
    As long as States continue to proliferate weapons of mass 
destruction, and both state and non-state actors continue their 
attempts to acquire these devices with the intent to target the United 
States and/or U.S. interests, we must remain vigilant and effective in 
our efforts. It is important to stay ahead of the threat, which 
requires expanded research and development efforts to ensure that our 
skilled operators are properly trained and equipped to defeat these 
threats.

                      SUPPORTED COMBATANT COMMAND

    Question. Under certain circumstances and subject to direction by 
the President or Secretary of Defense, SOCOM may operate as a supported 
combatant command.
    In your view, under what circumstances should SOCOM conduct 
operations as a supported combatant command?
    Answer. SOCOM should be, in accordance with the Unified Command 
Plan, the supported commander for planning and synchronizing planning 
for global operations against terrorist networks. Mission execution in 
most instances remains under the command of Geographic Combatant 
Commanders, or, more precisely, in accordance with title 10 U.S.C. 167 
unless otherwise directed by the President or Secretary of Defense, a 
special operations activity or mission shall be conducted under the 
command of the commander of the unified combatant command in whose 
geographic area the activity or mission is to be conducted.
    Only in rare instances, involving highly sensitive targets or 
significant political considerations, does Commander, SOCOM execute a 
mission.
    Question. In your view, what resource, organization, and force 
structure changes, if any, are required in order for SOCOM to more 
effectively conduct both supporting and supported combatant command 
responsibilities?
    Answer. It seems to me that, after 10 years of active combat, SOCOM 
is probably structured correctly to conduct both supporting and 
supported combatant command responsibilities. I understand SOCOM and 
the office of the ASD(SO/LIC) are currently studying the Theater 
Special Operations Commands to determine what changes, if any, should 
be considered in the future. I will look at this issue carefully if 
confirmed.

                          TRAINING CAPABILITY

    Question. What capabilities do you consider most important for 
effective training of special operations personnel?
    Answer. Special Operations Forces cannot be created rapidly since 
they require a high degree of training, experience, and job skill sets 
that are often unique. The human component of SOCOM is where its 
strength lies and to develop our special operations personnel we must 
be willing to invest the necessary time and resources in advanced, 
realistic training. We must be able to leverage real-world exercises 
like the Joint Combined Exchange Training (JCET) programs to expose our 
SOF to real-world experiences. It is critical that they develop 
language and cultural skills that allow them to operate in diverse 
foreign environments where our national interests are greatest. Special 
operations personnel must develop a mastery of their skills. DOD/SOCOM 
must maintain or increase resources and time spent on training ranges 
and developing interoperability with the Services and our allies who 
serve as significant enabling components to SOF.
    Question. What improvements are necessary, in your view, to enhance 
training for special operations personnel?
    Answer. Professional military education remains an important part 
of developing the critical language and cultural skills required of SOF 
personnel. DOD must be willing to prioritize additional resources and 
incentives to encourage the development of language and cultural skills 
in our servicemembers and more importantly within our special 
operations personnel. DOD should take advantage of, and increase where 
possible, immersion training opportunities, exchanges, and advanced 
education opportunities. At the same time, DOD/SOCOM must not allow our 
SOF to lose their core combat capabilities; the balance between warrior 
and ambassador should be respected and SOCOM needs to prioritize the 
continued development of the core combat skills that make our SOF 
unique and experienced.
    Admiral McRaven has additionally highlighted that pre-mission and 
predeployment training with relevant Service-provided capabilities 
(e.g. mobility, fires, engineers, etc) is critical to ensure that joint 
SOF packages are effective.
    Question. What are the most significant challenges in achieving 
effective training of special operations personnel?
    Answer. SOCOM has highlighted that it needs to move from a 
primarily threat-focused approach to a population-focused approach. 
This means conducting indirect warfare and moving beyond core SOF 
skills. It already takes significant time to develop the basic skill 
sets for special operations personnel. Developing additional language, 
cultural, diplomatic, and other non-combat SOF skills will be a 
challenge. SOF are deployed at an extremely high rate leading an 
effective effort to combat terrorism throughout the world. Deploying 
persistently and for long durations results in great experiences for 
special operations personnel, but in many cases a focused mission may 
result in the atrophy of other skill sets. For example, aircrews may 
conduct repetitive air-land missions on a long deployment, but may not 
conduct a specific airdrop mission due to deployment constraints. SOCOM 
must ensure there is enough time to train in the deployment cycles to 
maintain proficiency in core SOF capabilities. Additionally, since most 
SOF missions require non-SOF support, time must be added to work 
closely with Service counterparts supporting SOF.
    Question. What, if any, training benefits accrue to U.S. Special 
Operations Forces from training foreign military personnel?
    Answer. Training foreign military personnel has a substantial 
benefit for SOF, especially when they are foreign military units tied 
directly to current and future operations. The training of these units 
can increase interoperability, and allow the foreign units to take a 
larger lead in their own defense operations while our special 
operations trainers maintain their instructor skills. The training of 
the foreign military personnel greatly benefits SOF as they gain an 
increased situational awareness of future operating environments and 
allies while honing language and cultural skill sets that are critical 
to successful operations. JCETs and other regionally synchronized 
training efforts help pave the way for critical counterterrorism 
operations or even humanitarian efforts or other SOF mission sets. 
These activities help expose SOF to new tactics, techniques, and 
procedures while also encouraging the development of communication and 
intelligence-sharing mechanisms that enable CT operations. Training 
foreign military units helps build trusting relationships and fosters 
familiarization that in return enables our SOF to work in foreign 
countries with greater success and confidence.
    Question. To what extent, in your view, is it appropriate for the 
U.S. to rely upon contractors for training foreign military personnel? 
What do you see as the primary risks and advantages in such contractor 
training?
    Answer. SOF cannot be replaced by contractors, but there may be 
times when utilizing contractors makes more sense and should be the 
course of action. In some situations, it may be prudent to contract out 
a specific mission because we may not possess that skill within our own 
SOF. For example, there may not be a SOF aviator trained on a certain 
aircraft, or there may not be a Green Beret with a specific language 
skill required for a training event. In these cases, a contract 
solution might be the best option to ensure an important mission is 
still conducted.
    Answer. On the other hand, there are risks of utilizing 
contractors. DOD is obligated to maintain strong oversight over 
contractors. Contractors are also not permitted to represent the U.S. 
Government. They are not a replacement for SOF and if not properly 
utilized may undermine efforts to train foreign units. Contractors can 
help provide augmented logistics, administrative support, and 
technical/computer expertise which in turn frees up special operations 
personnel for more SOF-unique training opportunities and operational 
missions.
    Question. On March 1, 2011, Admiral Eric Olson, the former 
Commander of SOCOM, provided written testimony to this committee that 
stated: ``The shortage of readily available, local ranges currently 
hampers Special Operations Forces' ability to meet deployment training 
timelines and causes our operators to `travel to train,' further 
increasing their already excessive time away from home.''
    What efforts do you plan to undertake in coordination with the 
military services to ensure that Special Operations Forces have timely, 
consistent and predictable access to training ranges and facilities?
    Answer. If confirmed, I would coordinate with SOCOM and take a 
closer look at how the GPF and SOF share training ranges and 
facilities. Where possible I would look to prioritize limited training 
resources for SOF training and those Service enablers supporting SOF. 
For example, if confirmed, I would prioritize future military 
construction efforts to expand training capabilities for SOF. I would 
also look to enter into additional memorandums of agreement for 
expanded GPF-SOF training opportunities on ranges and associated 
facilities to prepare our SOF for combat deployments.

     CAPABILITIES OF SPECIAL OPERATIONS AND GENERAL PURPOSE FORCES

    Question. The 2010 Quadrennial Defense Review (QDR) called for 
increased counterinsurgency (COIN), counterterrorism, and security 
force assistance capabilities within the general purpose forces.
    What is your assessment of the QDR with regard to the mix of 
responsibilities assigned to general purpose and Special Operations 
Forces, particularly with respect to security force assistance and 
building partner military capabilities?
    Do you believe that our general purpose forces need to become more 
like Special Operations Forces in mission areas that are critical to 
countering violent extremists?
    Are there certain mission areas that should be reserved for Special 
Operations Forces only?
    Answer. I fully support the strategy of building the defense 
capacity and capabilities of our partners as articulated in the 2010 
QDR. I believe that the mix of capabilities between general purpose and 
Special Operations Forces as called for in the QDR is correct. Each of 
the Services has gained valuable experience in this area over the past 
10 years, especially as a result of operations in both Iraq and 
Afghanistan. The Services are increasingly growing their organic 
capability and capacity to conduct security force assistance (SFA) 
operations in permissive and non-sensitive environments or where a 
large U.S. footprint is acceptable. Likewise, SOF have gained valuable 
experience in building the military capability and capacities of our 
partners not only in Iraq and Afghanistan, but also with our coalition 
partners as they prepare to deploy in support of both combat and 
stability operations. The Service SFA capability and capacity, however, 
should be for Service core competencies and not for missions best 
suited for SOF. SOF are still the force of choice for those security 
force assistance missions in non-permissive and politically sensitive 
areas and where the host nation demands a small footprint. In addition, 
SOF are the correct choice to train our partner nation SOF and improve 
their capabilities for counterterrorism operations.
    SOF have worked closely with the Service general purpose forces to 
prepare them to execute COIN and combating terrorism missions 
appropriate to their capabilities. The partnership between general 
purpose and Special Operations Forces is strong. The extensive combat 
employment of both forces in shared battle spaces has increased the 
need to coordinate our operations closely. This has resulted in a 
sharing of tactics, techniques, and procedures between SOF and general 
purpose forces that has helped to increase the Services' capabilities 
to execute COIN and combating terrorism operations. The Services can 
continue to complement SOF's capabilities by providing those combat 
enablers that are not organic to SOF units or that are not available in 
adequate quantities. These combat enablers, including intelligence and 
combat service support, are vital to the success of SOF, especially in 
today's complex operating environment.

                          COMBATTING TERRORISM

    Question. What is your understanding of the Department's strategy 
for combatting terrorism?
    Answer. The President's National Strategy for Counterterrorism 
maintains the focus on pressuring al Qaeda's core while emphasizing the 
need to build foreign partnerships and capacity and to strengthen our 
resilience. The United States is specifically at war with al Qaeda and 
associated forces, not the tactic of terrorism or the larger group of 
violent extremists in the world. Overarching goals are to protect the 
American people, Homeland, and interests; disrupt, degrade, dismantle, 
and defeat al Qaeda; prevent terrorists from acquiring or using weapons 
of mass destruction; eliminate safehavens; build enduring 
counterterrorism partnerships; degrade links between al Qaeda and its 
affiliates and adherents; counter al Qaeda's ideology; and deprive 
terrorists of their financial support and other enablers.
    The U.S. Government is engaged in a multi-departmental, 
multinational effort. Some of the activities that DOD directly 
undertakes to support this strategy include training, advising, and 
assisting partner security forces; supporting intelligence collection 
on al Qaeda; conducting information operations against al Qaeda; and, 
when appropriate, capturing or killing al Qaeda operatives. However, I 
understand DOD is also committed to enabling its intelligence and law 
enforcement partners, both in the United States and overseas, in their 
efforts to counter this threat.
    Question. If confirmed, how would you fulfill your responsibilities 
related to combatting terrorism?
    Answer. The ASD(SO/LIC) is the DOD lead for all special operations 
and low-intensity conflict matters. If confirmed, I would also advise 
the Secretary of Defense on sensitive counterterrorism and information 
operations; sections 1206, 1208, and related counterterrorism 
authorities; and the development of Special Operations Force 
capabilities necessary for countering the terrorist threat.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. In general, I think DOD is doing a good job of coordinating 
its counterterrorism efforts. At the operational level, the U.S. 
military, Intelligence Community, and law enforcement agencies 
regularly collaborate on operations. The various departments and 
agencies constantly share intelligence, with little of the 
``stovepiping'' that we saw before September 11. At the strategic 
level, the multiple counterterrorism bodies chaired by the National 
Security Staff provide ample opportunity for senior leaders to discuss 
key terrorism issues. There will always be some natural bureaucratic 
tensions, but I think the U.S. Government is well postured for 
continued strong counterterrorism collaboration. I will look at this 
closely if confirmed.
    Question. As you look around the globe at this moment, what do you 
see to be the most significant counterterrorism threats to the United 
States, our allies, and partners?
    Answer. The most significant groups that threaten the United States 
and our allies are al Qaeda in Pakistan and al Qaeda in the Arabian 
Peninsula. However, a few key operatives operating from any of al 
Qaeda's affiliates, or even ``lone wolves'' inspired by al Qaeda, can 
wreak havoc anywhere in the world. I am very concerned with preventing 
terrorists from obtaining weapons of mass destruction or loose anti-
aircraft weapons proliferating from unstable states. I understand that 
the U.S. Government is continually working to identify new terrorist 
methods of concealing improvised explosives.
    Question. On September 22, 2011, Secretary of State Hillary Clinton 
launched the Global Counterterrorism Forum (GCTF) with 30 founding 
members from around the world. The GCTF is a major initiative within 
the Obama administration's broader effort to build the international 
architecture for dealing with terrorism. The primary focus of the GCTF 
is capacity building in relevant areas and aims to increase the number 
of countries capable of dealing with the terrorist threats within their 
borders and regions.
    What is your understanding of this initiative?
    Answer. The GCTF is a multilateral platform that will provide a 
venue for countries to meet and identify counterterrorism needs, and 
mobilize the necessary expertise and resources to address such needs 
and enhance global cooperation. The GCTF is intended to complement 
ongoing efforts with the United Nations, as well as other regional and 
sub-regional bodies. I understand that the September launch of the GCTF 
was positively received by all of the countries involved.
    Question. Given the emphasis on building partner capacity, what is 
your understanding for the role of DOD--and in particular Special 
Operations Forces--in this initiative?
    Answer. The defeat of al Qaeda cannot be achieved without bringing 
together the expertise and resources of the entire U.S. Government--
intelligence, law enforcement, military, and other instruments of 
national power--in a coordinated and synchronized manner. If confirmed, 
I would seek strong relationships with DOD's interagency partners, in 
particular, the National Counterterrorism Center, the State 
Department's Office of the Coordinator for Counterterrorism, and the 
Center for Strategic Counterterrorism Communications, to maximize DOD's 
efforts to counter violent extremism. The GCTF, as a State Department-
led effort, is one example where SOF's counterterrorism and security 
cooperation activities can support and inform interagency partners' 
efforts in counterterrorism.

                        SECTION 1208 OPERATIONS

    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. I understand that section 1208 authority is a key tool that 
combatant commanders have repeatedly confirmed as essential to 
combating terrorism in their areas of responsibility. It enables the 
Special Operations Forces under their control to leverage willing 
partners who possess access to areas, people, and information that are 
denied to U.S. forces, but which are critical to our tactical and 
strategic success. The authority has allowed DOD to respond quickly to 
emergent global challenges. Use of section 1208 requires appropriate 
civilian oversight, including the Secretary of Defense's approval and 
congressional notification.

                              AFGHANISTAN

    Question. What is your assessment of the current situation in 
Afghanistan? What are the weaknesses and shortcomings in the current 
effort to combat terrorism and insurgency in Afghanistan?
    Answer. In my view, the International Security Assistance Force 
(ISAF) and its Afghan partners have made important security gains, 
reversing violence trends in much of the country, and beginning to 
transition Afghan security to lead in seven areas. Continued military 
pressure through partnered operations has allowed joint ISAF-Afghan 
forces to maintain and expand the security gains, especially in the 
former Taliban strongholds in Helmand and Kandahar. The Afghan National 
Security Forces (ANSF) have been integral to this success, 
demonstrating substantial growth in quantity, quality, and operational 
effectiveness.
    The United States is employing the right methodology, and security 
continues to improve. However, the insurgency's safe havens in Pakistan 
and the limited capacity of the Afghan Government remain the biggest 
threats to consolidating security gains to enable an enduring, stable 
Afghanistan. The insurgency remains resilient, benefiting from safe 
havens, with a notable operational capacity as reflected in isolated, 
high-profile attacks and elevated violence levels in eastern 
Afghanistan. Nevertheless, this partnered campaign has provided 
increased security and stability for the Afghan population, and the 
United States continues to build upon this success.
    Question. In your view, what is the appropriate role of Special 
Operations Forces in Afghanistan, and the proper relationship between 
counterterrorism and counterinsurgency operations there?
    Answer. In my view, counterterrorism (CT) and counterinsurgency 
(COIN) are inextricably linked in Afghanistan. There must be a balanced 
and measured approach to their application. CT efforts, including 
direct action, shape the environment and create conditions necessary 
for the causes of instability to be addressed. This enables the further 
capacity development of Afghan governance and Afghan security forces.
    Question. Night raids conducted by U.S Special Operations Forces 
and Afghan commandos have resulted in removing thousands of insurgents 
from the battlefield, often without any shots being fired. Nonetheless, 
night raids remain controversial in Afghanistan, and the Afghan 
Government and community leaders have repeatedly called for restricting 
or eliminating their use.
    In your view, what should be the role of night raids in our 
strategy in Afghanistan?
    Answer. In my view, night operations are an essential and highly 
effective element of a strategy against al Qaeda and the Afghan 
insurgency, and they should continue to play an important role in 
maintaining pressure on militant groups. Night operations allow the 
United States, with its Afghan and international partners, to fight the 
insurgency with precision and focus while minimizing risk to civilians.
    I understand that Afghanistan's highly trained Special Operations 
Forces are steadily growing, and that Afghans currently play a key role 
in coordinating and partnering in the vast majority of these 
operations. Of course, night operations must continue to be conducted 
with due respect for cultural sensitivities and great care for the 
prevention of civilian casualties. Ultimately, the goal must be to 
ensure that Afghan and international forces have the capabilities and 
authorities necessary to achieve the transition goals agreed at the 
Lisbon Summit last November, while also being mindful of the goal to 
increase Afghan ownership throughout the transition process.
    Question. What is your assessment of the effectiveness of night 
raids, particularly in removing from the battlefield mid- and senior-
level insurgent commanders?
    Answer. The amount of pressure these operations have placed on the 
insurgency has been immense. Night operations have been particularly 
effective at using rapid exploitation of intelligence to target command 
and control structures, organizational capabilities, support networks, 
and infrastructure of insurgent and militant groups.
    I understand that the United States conducts the vast majority of 
night operations jointly with Afghan Security Forces, and we share a 
common goal--transition to Afghan security lead by 2014 and full 
transition as soon as the ANSF has the necessary capacity. Because of 
the high level of skill and professionalism of the joint U.S.-Afghan 
forces, no shots are fired during approximately 90 percent of night 
operations, and less than 1 percent of these operations result in 
civilian casualties.
    Question. What steps, if any, would you recommend to address Afghan 
concerns regarding the use of night raids?
    Answer. I understand that the United States has already taken 
numerous steps to minimize the potential for civilian casualties and 
give Afghan security forces leadership on night operations. All of our 
forces receive formal instruction in theater tactical directives 
pertaining to civilian casualties. Afghan Security Force leadership has 
been integrated into the planning, execution, and post-operation phases 
to ensure full transparency and enable its leadership to balance risk, 
cultural considerations, and operational requirements. Every U.S. 
operation is conducted with Afghan counterparts, and the Afghans are 
always in the lead during entry of compounds and call-outs. Measures 
for escalation of force are strictly followed. I understand that our 
Afghan partners, as well as U.S. commanders, strive to keep district 
and provincial political leadership informed of all operations.
    Question. Secretary Panetta and others have emphasized the 
importance of the Village Stability Operations and Afghan Local Police 
programs to the strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. Village Stability Operations (VSO) are a critical component 
of the COIN/CT balance in the ISAF campaign plan. VSO is a bottom-up 
approach linking governance to the village level. VSO uses Afghan and 
ISAF Special Operations Forces embedded in the community full-time to 
help improve security, governance, and development in more remote areas 
of Afghanistan where the ANSF and ISAF have a limited presence. I 
understand that, since its inception, VSO has expanded Afghan 
Government influence in key rural areas from 1,000 square kilometers to 
23,500 square kilometers today. VSO has also enabled a massive 
expansion in small-scale infrastructure development in these key rural 
areas. Across Afghanistan, increasing numbers of local communities are 
requesting to participate in this program.
    The Afghan Local Police (ALP), the armed local security program 
associated with VSO and established by President Karzai, has expanded 
to more than 8,000 members. Due to the increase in ALP effectiveness, 
the Afghan Ministry of the Interior has authorized an ALP end strength 
of 30,000. ALP are empowering local communities and have proven to be a 
significant threat to the Taliban, denying them safe-haven, and 
ultimately creating the conditions for long-term stability.
    As a result, the Taliban have mounted an aggressive intimidation, 
assassination, and disruption effort against Afghan Government 
officials, ALP members, and supportive populations. These attacks have 
largely failed to intimidate ALP forces and local communities, which 
continue to defend their villages effectively against insurgent 
attacks.
    Question. Do you believe the availability of U.S. Special 
Operations Forces is a limiting factor in expanding these programs to a 
point where they can have a strategic impact in Afghanistan?
    Answer. Yes, I believe that the expansion of this effort will need 
to rely on the application of theater Special Operations Forces and 
enablers. To assist in the responsible growth of these programs, ISAF 
has integrated specially trained conventional forces into the SOF-led 
VSO program, mainly to augment security requirements. These combined 
teams are producing strategic changes, and additional Special 
Operations Force structure will demonstrably expand this effect across 
the country. The approved expansion to 30,000 ALP patrolmen will likely 
strain the capacity of the coalition Special Operations Forces in 
Afghanistan and may require additional conventional forces to partner 
with SOF in order to support projected ALP growth adequately.
    Question. How do indirect approaches like the Village Stability 
Operations and Afghan Local Police Programs complement direct action 
counterterrorism missions within the U.S. strategy in Afghanistan?
    Answer. The U.S. National and Military strategies are based on 
direct and indirect approaches. Indirect SOF missions are part of what 
the Department now calls foundational activities. Village Stability 
Operations and the Afghan Local Police are part of that indirect 
approach and are critical to the success of General Allen's population-
centric campaign strategy in key rural areas across Afghanistan. 
Counterterrorism efforts complement these rural efforts by shaping and 
managing the security environment where these indirect approaches are 
pursued. One is no less or more important than the other; they are 
distinct yet complementary efforts that work in tandem to achieve near-
term and enduring stability.
    Question. On an annual basis, DOD spends approximately $500 million 
building the capacity of the Afghanistan Government to counter the 
illegal narcotics trade. Despite this sizeable annual investment, 
according to the United Nations Office of Drugs and Crime (UNODC), 
Afghanistan remains the ``wellspring of the global opium trade, 
accounting for 93 percent of all opium poppy cultivation.'' UNODC has 
also found that about 80 percent of the drugs derived from Afghan opium 
poppies are smuggled out by transnational organized criminal groups 
through the Islamic Republic of Iran and Pakistan; the rest flows 
through Central Asia.
    What is your assessment of DOD's counternarcotics program in 
Afghanistan?
    Answer. I understand that DOD supports counternarcotics efforts in 
Afghanistan by building Afghan capacity and working with U.S. law 
enforcement agencies such as DEA, CBP, FBI, and ICE to interdict 
narcotics trafficking. Although DOD supports Afghan eradication 
efforts, the Department of State has the lead for that effort. This 
year the interdiction of opiates and precursor chemicals in Afghanistan 
has increased. Afghan Counternarcotics Police vetted units, mentored by 
DEA, are now capable of conducting drug interdiction operations and 
have been actively involved in combined operations with DEA and 
military forces. DOD has also been building the capacity of the Afghan 
border management efforts to stop drugs from leaving Afghanistan and 
precursor chemicals from entering the country.
    Question. How would you improve DOD's counternarcotics efforts in 
Afghanistan?
    Answer. I believe that there have been considerable improvements 
this year in military and law enforcement coordination. Military 
commanders in Afghanistan are now requesting support from DEA and 
Afghanistan's Counternarcotics Police. Although there has been 
improvement there are probably other improvements that could be made; 
if confirmed, I will look into this.

                                PAKISTAN

    Question. The relationship between the United States and Pakistan 
has often been described as tumultuous. Reports indicate Pakistan has 
expelled U.S. special operations personnel who were deployed there to 
train the Frontier Corps and other Pakistani security forces to fight 
al Qaeda, the Taliban, and other associated groups.
    How important in your assessment is the U.S.-Pakistan military-to-
military relationship to the success of our overall counterterrorism 
strategy?
    Answer. The National Strategy for Counterterrorism is clear in 
stating that the United States will only achieve the strategic defeat 
of al Qaeda through a sustained partnership with Pakistan. In my view, 
the military-to-military relationship is an important part of this 
partnership as it facilitates the indirect approach of working through 
and with our Pakistan Military (PAKMIL) partners to achieve mutually 
beneficial counterterrorism goals. U.S. military assistance to Pakistan 
has helped the PAKMIL achieve success in its counterinsurgency efforts. 
Despite recent setbacks in this relationship, it is important that we 
continue to engage our PAKMIL counterparts to reestablish and rebuild 
the relationship and continue achieving these successes.
    Question. Do you believe the current difficulties, including the 
reductions in U.S. trainers, are temporary or lasting?
    Answer. The recent ouster of Special Operations Command (Forward)-
Pakistan trainers was a significant setback in the overall military-to-
military relationship in Pakistan. However, I do not believe that this 
event is indicative of the relationships that U.S. and Pakistan 
military leaders have established at the unit levels. I understand 
these relationships are strong, and I believe we should be making every 
attempt to ensure that our tactical and operational level leaders are 
able to maintain these ties however possible. In terms of disagreements 
at the more senior levels, I believe that these can be mended, but it 
will require persistent, patient engagement. It may require reducing 
expectations of the military-to-military relationship in the short 
term, but I do believe that over time the two countries can return to 
more robust levels of military cooperation.

                                  IRAQ

    Question. What are the main ``lessons learned'' from Operation 
Iraqi Freedom and Operation New Dawn as they pertain to Special 
Operations Forces?
    Answer. I believe that the U.S. has learned many lessons through 
current operations. Some of these lessons include: the need to maximize 
combined operations with partner forces, the necessity of culturally 
attuned forces, the need for a unified U.S. Government approach, and 
the need for active and integrated interagency coordination.
    Question. What is your assessment of the security situation in 
Iraq?
    Answer. Although Iraq today is closer to being a stable and secure 
country, I remain mindful of the challenges. The Iraqis are taking 
critical steps to resolve ongoing political issues, but internal 
divisions remain. These issues must be addressed to avoid potential 
conflicts.
    The push for influence by Iran, and the activities of Iranian-
backed militias that have attacked U.S. forces and the Iraqi people, 
are other issues that Iraq will still need to face. Unlike Iran, the 
United States is working to build a safer and stronger Iraq, and it is 
that shared interest that gives me confidence that the United States 
can build an enduring partnership with the Iraqi Government. I am also 
mindful of al Qaeda's role in Iraq.
    Regardless of DOD's post-2011 role, its civilian mission should be 
focused on helping Iraqis address their issues through a robust and 
representative Iraqi political process, which is the best safeguard 
against a return to violence.
    Question. What is your assessment of the capability of the Iraqi 
security forces? Do you assess that they are capable of conducting 
independent operations throughout the country?
    Answer. Iraq no longer needs large numbers of U.S. forces to 
maintain internal stability. U.S. commanders in the field believe that 
the Iraqi Security Forces are competent at conducting counter-
insurgency operations, but that the Iraqis will have gaps in their 
ability to defend against external threats and in areas such as 
integrated air defense, intelligence sharing, and logistics.
    Question. Do you believe an enduring military-to-military 
relationship with Iraq is important to the long-term stability of Iraq?
    Answer. Yes. The United States wants a normal, productive 
relationship and close strategic partnership with a sovereign Iraqi 
Government going forward--similar to the partnerships we have with 
other countries in the region and around the world.
    Question. What do you believe to be the threat of al Qaeda to 
security and stability in Iraq?
    Answer. Iraq's security and political situation is improving after 
years of instability that enabled groups such as al Qaeda in Iraq (AQI) 
to spread chaos and sectarian conflict. AQI continues to be the main 
focus of counterterrorism efforts in Iraq, as it poses a threat not 
only to stability but to remaining U.S. military forces and civilians. 
Iraqi-led counterterrorism operations have dismantled AQI's previous 
senior leadership, but new AQI leaders have assumed control and the 
group continues to conduct high-profile attacks. DOD will continue to 
watch for AQI attempts to reinvigorate its efforts and draw on a still-
significant network of associates that spans the region and includes 
associates in the United States.

                                 YEMEN

    Question. Prior to the current political crisis in Yemen, the U.S. 
Government had a robust security assistance program to help the Yemeni 
security forces take action against al Qaeda. Some observers, while 
supportive of U.S. security assistance to Yemen, have suggested that 
the problems being confronted by the Government of Yemen cannot simply 
be addressed with the provision of additional security assistance.
    What is your assessment of the security situation in Yemen?
    Answer. The security situation remains tense. Al Qaeda in the 
Arabian Peninsula (AQAP) has taken advantage of the instability in 
Yemen, and operates with greater impunity in the most unstable areas 
while attempting to seize and control territory in the south.
    The Yemeni Government has recently made some gains against AQAP in 
the south, driving most of the group out of Zinjibar and removing 
several key leaders from the battlefield. However, the larger political 
instability in Yemen will not be resolved until President Saleh agrees 
to a political transition plan, which he has thus far been unwilling to 
do.
    Question. What criteria would you use in determining whether 
security assistance activities in Yemen should resume?
    Answer. I understand the United States is currently providing some 
modest, non-lethal assistance to Yemeni forces, but DOD is also 
assessing how the United States could resume more robust security 
assistance. This will require greater political stability, which will 
probably require President Saleh to leave power. The United States will 
also need to see an improved security situation that allows U.S. 
personnel to work safely with Yemeni forces. It will be important to 
ensure any partner units have not committed human rights abuses or been 
involved in suppressing the political opposition over these past 
months. Finally, it will be necessary to assess Yemeni willingness to 
employ partner units against AQAP and focus support on those units that 
are most receptive to U.S. assistance and most likely to be used 
against our common adversary.
    Question. Given the current limitations on lethal security 
assistance to the Yemeni counterterrorism forces, what is your 
assessment of the U.S. strategy to counter al Qaeda in the Arabian 
Peninsula?
    Answer. Although resuming capacity building is critical to long-
term efforts against AQAP, the U.S. strategy goes beyond capacity 
building. I believe a number of important gains against AQAP have been 
made over the past year. DOD continues to collaborate extensively with 
Yemeni forces on operational matters. The United States is closely 
monitoring AQAP and regularly improving understanding of its external 
attack plots. Efforts to counter AQAP's narrative have also helped 
delegitimize the group and discourage its efforts to recruit new 
operatives. The U.S. Government's work on countering threat financing 
has made it more difficult for AQAP to receive funds and to support 
other parts of al Qaeda. Finally, the past year has seen several key 
leaders removed from the battlefield, including Anwar al-Aulaqi.

                                SOMALIA

    Question. In your view, what should be the U.S. policy towards 
Somalia and what do you believe to be the appropriate role of the DOD 
in support of that policy?
    Answer. U.S. policies toward Somalia should support the Somali 
Transitional Federal Government's and the African Union Mission to 
Somalia's abilities to deliver security and basic services and lay the 
foundation for a stable, functioning government. That is what the 
United States wants to see for the people of Somalia.
    However, Somalia's decades-long lack of governance and sparse 
population make it appealing as a safe haven for al Qaeda. As al Qaeda 
undergoes leadership changes and responds to counterterrorism 
operations in Pakistan, the need to ensure that it does not relocate 
its center of operations to Somalia is critical.
    I understand that DOD's primary mission in the Horn of Africa is to 
build partner-nation capacity in order to promote regional security and 
stability, prevent conflict, and protect U.S. interests. I believe this 
mission is appropriate. I am informed that U.S. Africa Command is 
undertaking a review of East Africa to determine how military efforts 
in the region work in concert with DOD's interagency partners to 
achieve collective regional goals and counter al Qaeda's linkages to 
elements of al Shabaab. DOD's ultimate goal should be a fully 
integrated strategy under which security assistance, capacity building, 
operational collaboration with regional partners, and counterterrorism 
actions which are synchronized to provide the regional security and 
stability that are in the interest of both the United States and our 
regional partners.
    If confirmed, I would work to ensure our strategy is developed as 
part of a coordinated U.S. national security policy towards the Horn of 
Africa, and to determine how DOD can and should best support this 
policy.

                      TERRORISM THREATS IN AFRICA

    Question. Over the course of the last decade, al Qaeda-inspired and 
affiliated groups in Africa have gained strength, leading some to 
express concern about their intent and ability to strike the interests 
of the U.S. and partner nations.
    What is your understanding of U.S. policy with regard to countering 
the threats posed by these groups?
    Answer. In East Africa the U.S. strategy is focused on dismantling 
al Qaeda elements while building the capacity of countries and local 
administrations to serve as countervailing forces to the supporters of 
al Qaeda and the purveyors of instability that enable the transnational 
terrorist threat to persist.
    Al Qaeda elements in East Africa continue to be a primary focus of 
the United States in light of clear indications of their ongoing intent 
to conduct attacks against U.S. facilities and interests abroad. Al 
Qaeda's presence within al Shabaab is increasingly leading that group 
to pose a regional threat with growing trans-regional ties to other al 
Qaeda affiliates.
    U.S.' efforts against al Qaeda in the Islamic Maghreb (AQIM) are 
closely integrated with the broader U.S. regional strategy, especially 
since the long-term eradication of AQIM will not be addressed by 
traditional counterterrorism tools alone. As appropriate, the United 
States will use its counterterrorism tools, weighing the costs and 
benefits of its approach in the context of regional dynamics and 
perceptions and the actions, will, and capabilities of its partners in 
the region--local governments and European allies. I understand that 
the United States will seek to bolster efforts for regional cooperation 
against AQIM, especially among Algeria, Mauritania, Mali, and Niger as 
an essential element of our strategy. The United States should also 
continue to work with our interagency and international partners on 
mitigating threats from emergent groups such as Boko Haram in Nigeria.
    Question. Do you believe DOD's assets and other resources allocated 
to countering terrorist threats in Africa are adequate to understand 
and respond to the threats posed by these groups?
    Answer. A significant portion of the U.S. counterterrorism effort 
is focused on the Middle East and Afghanistan/Pakistan regions and 
CENTCOM has received the majority of DOD's operational and intelligence 
assets. To address terrorist threats in Africa, I understand we have 
executed an economy of effort. As our Nation's activities in the 
CENTCOM region change, additional assets may be available to address 
U.S. Africa Command's (AFRICOM) needs. Our Special Operations Forces 
will undoubtedly be an integral part of future engagements in Africa 
and will support partner nations in their response to terrorist 
networks working on the continent.

                                COLOMBIA

    Question. For more than a decade, Colombian security forces have 
worked in partnership with U.S. Special Operations Forces to counter 
security threats. This partnership has helped to enable the Colombians 
to significantly degrade the terrorist organization known as the FARC.
    What do you believe are the primary lessons learned from U.S. 
Special Operations Forces training and advising activities in Colombia?
    Answer. In Colombia, the U.S. military learned the value of playing 
a supporting role, seeking to complement Colombian strategies, rather 
than develop competing ones. DOD's experience in Colombia also prepared 
us to adapt to the changing environment; to recognize and embrace 
opportunities when they presented themselves. DOD has learned that our 
partnerships must constantly evolve from the point where they start, to 
confront and counter threats that are also adapting and changing.
    Question. Are there lessons learned that may apply to U.S. support 
to Mexico and Central America in their efforts to counter the threats 
posed by transnational criminal organizations?
    Answer. Yes. Many of the U.S. Government's lessons learned from our 
experiences in Colombia are currently reflected in our efforts in 
Mexico. Transnational criminal activities, including narcotics 
trafficking, kidnapping for ransom, and arms smuggling, provide 
pathways and opportunities for criminal and terrorist organizations to 
move people and resources across the region. Moreover, effectively 
addressing these transnational criminal threats in Colombia and Mexico 
is critical to addressing security throughout the region, including in 
Central America and along our southwest border.

                      REPUBLIC OF THE PHILIPPINES

    Question. What is your view of the effectiveness of U.S. assistance 
being provided through the Joint Special Operations Task Force-
Philippines to the military of the Republic of the Philippines in its 
fight against terrorist groups?
    Answer. Though a great deal of our focus in the Philippines has 
been on countering terrorist groups, U.S. assistance to the Philippines 
has always been, and continues to be, a multi-faceted approach. The 
Joint Special Operations Task Force-Philippines (JSOTF-P) engages each 
branch of the Armed Forces of the Philippines (AFP) and Philippine 
National Police (PNP) using appropriate authorities to help build 
capacity and improve the image and professionalism of all elements of 
the AFP and PNP. Examples of successes range from the Department of 
State (DOS)-funded training to improve AFP aviation and maritime 
capabilities to DOD-funded procurement of precision munitions under 
section 1206. DOD has also conducted MISO activities and Civil Affairs 
projects, and has supported DOS-led diplomatic efforts. As a direct 
result of these combined efforts, the capability of the Philippine 
Security Forces has been vastly improved. The Philippine Government has 
become more effective in maintaining the pressure on the key terrorist 
groups.

                 STABILITY AND PEACEKEEPING OPERATIONS

    Question. The office of ASD(SO/LIC) is responsible for policy and 
activities concerning stability operations, such as peacekeeping and 
humanitarian assistance.
    If confirmed, what role would you play in the planning and conduct 
of ongoing and future stability operations? What are the major 
challenges in this area and how would you address them?
    Answer. Stability operations are a core mission that DOD must be 
ready to carry out with proficiency equivalent to high-intensity combat 
operations. Although this represents a cultural shift for DOD, they 
understand that all the Military Departments must adequately train, 
organize, and equip forces to conduct such missions. If confirmed, I 
would work with the Secretary, the Chairman, and leadership of the 
Military Departments to ensure that DOD is preparing U.S. forces for 
stability operations.
    Question. From 2000 to 2003, you served as the Assistant Secretary 
General (ASG) for Peacekeeping Operations at the United Nations (U.N.). 
What lessons did you learn from your experience at the U.N. that might 
apply to your work as the ASD(SO/LIC)?
    Answer. My time at the U.N. was invaluable. Much like assuming a 
leadership position at DOD, working as an ASG at the U.N. meant 
learning how to navigate an enormous organization with a culture and a 
bureaucracy all its own, the pressures of competing priorities and 
multiple stakeholders, and managing a large staff and complex 
operations with finite resources. It was a challenging experience, and, 
if confirmed, I look forward to applying it to my new post in SO/LIC.
    Question. Experience in Iraq has underscored the importance of 
planning and training to prepare for the conduct and support of 
stability operations in post-conflict situations.
    In your view, what is the appropriate relationship between DOD and 
other departments of government in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. Ideally, DOD would provide support to other departments and 
agencies such as the Department of State, U.S. Agency for International 
Development, and the Department of Justice in the planning and conduct 
of stability operations. But, when directed, DOD has led stability 
operations activities to establish civil security and control and to 
restore essential services, repair and protect critical infrastructure, 
and deliver humanitarian assistance, and then has transitioned lead 
responsibility to other U.S. Government agencies, foreign governments' 
security forces, and international governmental organizations and non-
governmental organizations. If confirmed, I would ensure that DOD 
operates within U.S. Government and international structures for 
managing civil-military operations, and would seek to enable the 
deployment and use of civilian capabilities and resources, as directed 
and as appropriate.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq?
    Answer. I think we need to strengthen the U.S. Government's 
collective ability to plan and train together and be more collaborative 
in designing stabilization and reconstruction activities. I am aware 
that the Department is working with interagency partners to identify 
areas where they can improve planning efforts.
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
U.N., stated that the United States ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
additional military personnel to both staff positions and military 
observers in support of U.N. peacekeeping operations?
    Answer. In general, I would support additional contributions of 
personnel to staff officer positions, provided that they are positions 
that would add significant value to the mission, and that the mission 
is a strategic priority for the United States.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. There are several potential advantages to contributing 
additional military personnel to U.N. missions: the opportunity to 
shape these missions from the inside; professional development 
opportunities for servicemembers to serve in a joint, multi-lateral 
environment; and the benefit of receiving real-time information and 
insights on emerging threats and crises from places where there might 
not otherwise be a U.S. presence. It also enables an increased 
professional interaction by U.S. servicemembers with numerous partner 
nations' servicemembers, with whom we may not normally have the 
opportunity to serve.
    The potential disadvantage of providing additional military 
personnel is the additional demands these assignments would impose on a 
U.S. military force that has seen extensive deployments in recent years 
and is still heavily engaged in overseas operations. I do not believe 
the United States will be in a position to provide significant numbers 
of military personnel to peacekeeping missions anytime in the 
foreseeable future. However, I believe the selective placement of even 
modest numbers of U.S. military personnel in addition to the fewer than 
30 currently assigned to U.N. operations can have a significant, 
positive, impact on U.N. peacekeeping operations.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
U.N.?
    Answer. If confirmed, I would support exploring ways that DOD could 
more quickly respond to requests for personnel support, bearing in mind 
applicable legal requirements and the current operational tempo of U.S. 
forces.
    Question. DOD has provided logistics, communications, and 
headquarters staff to a variety of United Nations (U.N.) peacekeeping 
missions over the past decade.
    In your view, beyond providing key personnel and observers, what 
support, if any, should DOD provide to multilateral peacekeeping 
missions?
    Answer. The Department already provides support to multilateral 
peacekeeping missions beyond personnel and observers. For example, the 
combatant commands implement roughly half of all Global Peace 
Operations Initiative activities, and many troop contributor countries 
also benefit from inclusion in the regional Combatant Commands' 
regional peacekeeping exercises. The Army's Peacekeeping and Stability 
Operations Institute is involved in a number of efforts to improve 
international peacekeeping. Additional support might also be possible, 
but DOD will need to balance increase support for peacekeeping with 
other operational requirements.
    Question. In 2005, the United States along with our partners in the 
G-8 launched the Global Peace Operations Initiative (GPOI) to train 
peacekeepers. This program is run by the Department of State. DOD has 
provided varying degrees of support since the program's inception.
    What are your views on the GPOI program?
    Answer. I fully support the GPOI program. GPOI is not only a 
successful capacity-building program, but it is also a great example of 
a DOD-State Department partnership.
    GPOI's efforts are especially needed now as the demands on U.N. 
peacekeeping are great and missions continue to increase in scope and 
complexity.
    Question. In your view, what is the appropriate role of the DOD in 
this program and, more generally, in the training of peacekeepers?
    In general, peacekeeping training should be done by the military to 
the extent possible.
    As previously mentioned, the combatant commands already implement 
roughly half of all GPOI activities, and include peacekeeping 
contributor countries in their regional peacekeeping exercises.
    The State Partnership Program has also taken a role in peacekeeping 
training, partnering with contingents readying to deploy to U.N. 
peacekeeping missions.

                       INTERAGENCY COLLABORATION

    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Our Nation has learned many hard lessons about the 
importance of whole-of-government approaches in counterinsurgency and 
counterterrorism operations over the past several years. One of the 
most important lessons of our experiences in Afghanistan and Iraq is 
that success in counterinsurgency, counterterrorism, and post-conflict 
stability operations depends upon the integrated efforts of both 
civilian and military organizations in all phases of an operation, from 
planning through execution. Sustainable outcomes require civilian 
development and governance experts who can help build local civilian 
capacity. I understand that DOD supports the lead by other departments 
and agencies such as State, Justice, and USAID in areas such as 
fostering political reconciliation, building accountable institutions 
of government, restoring public infrastructure, and reviving economic 
activity, so that DOD can focus on providing a safe and secure 
environment and assist in building accountable armed forces. If 
confirmed, I will continue efforts to ensure that interagency 
collaboration is as robust and effective as possible.
    Question. How do you believe these efforts can be improved?
    Answer. I believe interagency collaboration can be improved by 
continuing to ensure that the U.S. military plans and trains with our 
civilian counterparts, and is prepared to operate effectively in all 
phases of conflict, including post-conflict reconstruction and 
stabilization. In addition, improving the interagency planning process 
would ensure that optimal use is made of all national instruments of 
statecraft, while also enhancing the ability to conduct comprehensive 
assessments, analyses, planning, and execution of whole-of-government 
operations. I understand a 3D (Development, Diplomacy, and Defense) 
planning group is underway as one method of reviewing and improving 
interagency planning and coordination efforts. Robust civilian 
capabilities are critical to realizing any improvements in interagency 
efforts and implementation of best practices for future operations.
    Question. Should these informal and ad hoc arrangements be made 
more formal (i.e. through legislation, DOD Directives or Instructions, 
etc . . . ) or is their ad hoc nature the reason for their success?
    Answer. I note that DOD policy states that ``integrated civilian 
and military efforts are essential to the conduct of stability 
operations.'' The same policy states that the Department shall support, 
collaborate with, and assist other U.S. Government departments and 
agencies to plan, prepare for, and conduct stability operations. 
Although I have not studied this issue in detail, I believe we should 
build on the working relationships developed as a result of experience 
in Afghanistan and Iraq in order to improve interagency cooperation, 
interoperability, and unity of effort. If confirmed, I will be open to 
the advice of others on this issue.

                         TREATMENT OF DETAINEES

    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. Yes, this prohibition helps to ensure that individuals in 
the custody of U.S. forces are treated humanely consistent with the 
applicable U.S. laws and the laws governing armed conflicts. To treat 
individuals in our custody otherwise could increase the chances that 
U.S. servicemembers will be treated inhumanely should they be captured 
by enemy forces.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    Do you believe it is consistent with effective counterinsurgency 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. If confirmed, how would you ensure that our Special 
Operations Forces comply with the standards in the Army Field Manual, 
the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. If confirmed, I will work to ensure that all U.S. Special 
Operations Forces continue to receive the necessary education and 
training in the standards established in the Army Field Manual, 
relevant DOD Directives, and other applicable requirements of U.S. and 
international law regarding detention and interrogation operations.
    Question. What steps, if any, would you take to ensure that those 
foreign forces trained by our Special Operations Forces understand the 
necessity of complying with the Geneva Conventions when detaining and 
interrogating individuals?
    Answer. If confirmed, I will work to ensure that our Special 
Operations Forces continue to stress in our training operations with 
foreign forces the importance of complying with the Geneva Conventions 
when detaining and interrogating individuals.

               SPECIAL OPERATIONS PERSONNEL IN EMBASSIES

    Question. SOCOM deploys personnel to work with country teams in a 
number of priority countries where the United States is not engaged in 
direct action operations, but rather trying to counter the spread of 
violent extremism. Their mission is to support the priorities of the 
ambassador and the combatant commander's theater campaign plan against 
terrorist networks. At times, ambassadors have expressed concern that 
they have not been adequately informed of activities by Special 
Operations Forces in their country.
    Are you aware of these concerns?
    Answer. Yes. However, no significant concerns have been raised in 
recent years that I am aware of.
    Question. If confirmed, what do you intend to do to make sure the 
goals of special operations personnel deployed to these countries are 
aligned closely with those of the Ambassadors they are working with?
    Please describe the value of these special operations personnel to 
their respective Geographic Combatant Commands and the country teams 
they are supporting.
    Answer. The partnership among our geographic combatant commanders, 
ambassadors overseas, embassy country teams, and forward deployed 
Special Operations Forces has been strong throughout the past 10 years, 
even in view of the few isolated incidents where coordination could 
have been better. If confirmed, a priority of mine will be to continue 
working with Admiral McRaven, the Geographic Combatant Commanders, and 
State Department colleagues to strengthen these trusted partnerships 
further.

                    DOD COUNTERNARCOTICS ACTIVITIES

    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States. On an annual basis, DOD's 
counternarcotics (CN) program expends approximately $1.5 billion to 
support the Department's CN operations, including to build the capacity 
of Federal, State and local law enforcement agencies, and certain 
foreign governments, and provide intelligence support on CN-related 
matters and a variety of other unique enabling capabilities.
    In your view, what is the appropriate role of DOD in U.S. 
counterdrug efforts?
    Answer. In my view, DOD should continue to play an important role 
in U.S. counterdrug efforts in support of the National Security 
Strategy, the National Drug Control Strategy, and the Strategy to 
Combat Transnational Organized Crime. In addition to being the 
statutory lead agency for the detection and monitoring of drug 
trafficking bound for the United States, DOD provides critical 
counterdrug support to supporting State, local, Federal, and foreign 
law enforcement partners. The enemies America faces on the battlefield 
today are increasingly financed through non-traditional means, 
including through drug trafficking and other forms of organized crime. 
Just as DOD has long been focused on how traditional, State-funded 
adversaries are supported, the U.S. must use all of the tools at its 
disposal to attack the sources of revenue that support the asymmetrical 
threat the U.S. faces today and is likely to face for the foreseeable 
future. Transnational organized crime contributes to global instability 
by undermining legitimate government institutions, fostering 
corruption, and distorting legitimate economic activity. DOD's efforts 
to build the counternarcotics capacity of partner nation security 
forces serve to prevent and deter broader conflicts that could require 
a much more costly military intervention in the future.
    Question. What is your understanding and assessment of the DOD CN 
program?
    Answer. I have not yet had the opportunity to evaluate the 
effectiveness of the CN program. Based on my past experience, however, 
I fully recognize the importance of DOD counterdrug activities, 
including as the statutory lead agency for aerial and maritime 
detection and monitoring of drugs bound for the United States, DOD's 
activities in support of the warfighter in Afghanistan, and other areas 
of national security interest such as Mexico and Colombia. I also 
believe that DOD CN authorities are extremely useful tools that fit 
well into the current construct of the ASD for SO/LIC. If confirmed, I 
look forward to ensuring that these activities are given their 
appropriate level of attention and oversight, and to ensure that they 
are as cost-effective as possible.
    Question. What is your assessment of the ongoing efforts of the 
United States to reduce the amount of illegal narcotics entering into 
the United States?
    Answer. As outlined in the National Drug Control Strategy, the 
counterdrug efforts of the United States and partner nations have 
achieved major and sustained progress against cocaine use and 
distribution throughout the Western Hemisphere. These efforts have had 
an impact on both the demand and supply side of the cocaine threat as 
evidenced by declining border seizures, increased street price, falling 
cocaine retail purity, and sharply decreased domestic cocaine 
consumption. DOD support, such as the establishment of Joint 
Interagency Task Force-South and support to Plan Colombia, has played a 
critical role in this whole-of-government effort by bringing unique 
military capabilities and expertise to enhance the capability of our 
law enforcement partners.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. Confronting the threat of drugs bound for the United States 
should continue to be a high priority, but we cannot afford to turn a 
blind eye to drug trafficking that is not directly bound for the United 
States. Drug trafficking is by far the world's most lucrative illicit 
activity and therefore is used as a source of revenue by terrorists, 
insurgents, and other threats to national security. The vast illicit 
proceeds of drug trafficking can also contribute to instability in 
affected countries, particularly in smaller, more vulnerable countries 
along key transit routes as we are seeing today in Central America and 
West Africa. The national security implications of drug trafficking 
necessitate our close attention--even when the drugs are not bound 
directly for the United States.
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. In July 2011, the President 
released his Strategy to Combat Transnational Organized Crime: 
Addressing Converging Threats to National Security. One of the priority 
action areas designating in the strategy is ``enhancing DOD support to 
U.S. law enforcement''.
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's strategy declares that transnational 
organized crime is a threat to national and international security. It 
calls on the U.S. Government to build, balance, and integrate the tools 
of national power to combat transnational organized crime and related 
threats to national security. The strategy calls for integrated, whole-
of-government approaches to transnational organized crime. Importantly, 
the President's strategy addresses drug trafficking and transnational 
organized crime as increasingly intertwined threats. The fact that 
transnational organized crime poses a national security threat beyond 
that of illegal narcotics and requires integrated interagency responses 
means that DOD must ensure that it is organized, resourced, and 
appropriately authorized to provide vital support to law enforcement 
and foreign partners against transnational organized crime. DOD is not 
in the lead against transnational organized crime, but it provides 
unique and critically important support in efforts to combat the 
manifestations of transnational organized crime that threaten national 
security.
    Question. What kind of additional support, if any, would you 
envision DOD providing to U.S. law enforcement--either in the United 
States or in support of U.S. law enforcement operations abroad?
    Answer. It is important that DOD's unique supporting capabilities--
from military intelligence support to counter-threat finance support--
be available to support U.S. law enforcement at home and abroad. If 
confirmed, I will examine whether additional forms of such support are 
needed.
    Question. DOD and the Intelligence Community have determined that 
some terrorist organizations are beginning to rely more heavily on 
producing and trafficking narcotics to fund their operations.
    In your view, what role, if any, should DOD have in broader U.S. 
Government efforts to combat the nexus between narcotics and terrorism? 
Should DOD be the lead agency?
    Answer. DOD should continue to provide a range of support to law 
enforcement, the broader interagency, and foreign partner nations as 
part of integrated efforts to combat the narcotics-terrorism nexus. 
Support includes military intelligence support to law enforcement, 
counter threat finance support, military-to-military capability 
development, and operational activities against threats to the United 
States.
    DOD should not assume the role of lead agency in combating the 
drug-terror nexus. In some cases, DOD might be the operational lead in 
actions to degrade a specific threat related to the narcotics-terrorism 
nexus, but, in general, the Department should focus on remaining ready 
to deploy our unique capabilities as part of coordinated U.S. 
Government approaches against this nexus. It is also important to note 
that the nexus is broader than just drugs and terrorism--it often 
manifests as a crime-terror-insurgent nexus, in which a range of 
illicit activities undertaken by networks of criminals merge with, or 
are exploited by, violent, politically-motivated groups.

                         COUNTER THREAT FINANCE

    Question. A number of officials in DOD and the Intelligence 
Community have called for investing additional resources in identifying 
and tracking the flow of money associated with terrorist networks and 
illicit trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Terrorists, drug traffickers, and other adversaries rely 
heavily on legal and illegal funding sources to support their 
activities, which routinely work against U.S. interests. In my view, it 
is critical to engage all U.S. Government tools to track and halt the 
flow of money associated with these organizations. It is my 
understanding that DOD has a capability, working with its interagency 
counterparts in both Iraq and Afghanistan, to identify and disrupt our 
adversaries' finances. Although DOD is not the U.S. Government lead 
agency in counter-threat finance, it plays a supportive role by working 
with other departments and agencies, and with partner nations, to fight 
our adversaries' ability to use global financial networks.
    Question. What do you believe is the appropriate role, if any, of 
SOCOM in supporting counter threat finance activities?
    Answer. I believe SOCOM plays a critical role in the field of 
counter-threat finance, and should continue to pursue activities, as 
appropriate, with interagency partners in identifying and disrupting 
threat-finance networks. This involves synchronizing DOD counter-threat 
finance activities and integrating them into broader counter-network 
planning and operations.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities (such as Department of Treasury, Drug 
Enforcement Agency, and Federal Bureau of Investigation)?
    Answer. I believe that DOD should increase its cooperation with 
U.S. law enforcement agencies, the Department of the Treasury, the 
intelligence community, and Department of State to target and degrade 
our adversaries' funding sources where necessary and possible. DOD 
Counter Threat Finance (CTF) Policy provides that DOD should work with 
other U.S. Government departments and agencies and with partner nations 
to deny and disrupt, or defeat and degrade, adversaries' ability to use 
global licit and illicit financial networks to affect U.S. interests 
negatively. Greater cooperation would yield an enhanced ability to 
target our adversaries' vulnerabilities using a whole-of-government 
approach, including interdiction, sanctions, and other law enforcement 
actions.

                      COUNTERING VIOLENT EXTREMISM

    Question. Over the past few years, DOD has funded a growing number 
of MISOs and influence programs under the rubric of strategic 
communications programs. While the Department does not have any 
separate documentation outlining these activities, the Government 
Accountability Office reports that DOD ``spent hundreds of millions of 
dollars each year'' to support these operations, including initiatives 
funded by the Joint Improvised Explosive Device Defeat Organization, 
the geographic combatant commands, and SOCOM.
    What are your views on DOD's strategic communications, MISOs and 
other influence programs, and their integration into overall U.S. 
foreign policy objectives?
    Answer. Operating in an information environment is a critical 
component of military operations. DOD's information and influence 
activities support military objectives established by Combatant 
Commanders, which in turn support the National Military Strategy. U.S. 
military objectives, by design, support U.S. foreign policy objectives. 
Recent changes to how DOD oversees, organizes, and employs Information 
Operations have resulted in significant improvements in the management 
and accountability of these activities. DOD recognizes the challenges 
of evaluating the effectiveness of these operations in the short-term 
and has placed an emphasis on better evaluating these activities.
    Question. In 2005, al Qaeda leader Ayman al-Zawahiri declared that 
``We are in a battle, and more than half of it is taking place in the 
battlefield of the media.'' Many observers have criticized the lack of 
a U.S. strategy to counter radical ideologies that foment violence.
    As ASD(SO/LIC), how would you seek to further DOD's strategic 
appreciation of the ideological basis of al Qaeda, its affiliates, and 
other non-state actors?
    Answer. DOD's global presence means our forces often come face-to-
face with radical ideologies and the violence propagated by Islamist 
extremists. Therefore, DOD personnel are in an ideal position to 
contribute to U.S. Government efforts to counter the extremist 
messages. DOD seeks to reduce support for al Qaeda, its affiliates, and 
adherents by engaging foreign local populations, countering adversarial 
propaganda, and developing relationships with key leaders and credible 
local interlocutors across the globe.
    Question. In your view, how do we counter radical ideologies that 
foment violence?
    Answer. In my view, the efforts of the U.S. Government to counter 
radical ideologies that foment violence must be persistent and long-
term, and should be developed in a way that will shape and support 
collaborative regional security initiatives. DOD participates in, and 
often provides support to, several interagency efforts to counter 
violent extremism. DOD works closely with State, the Central 
Intelligence Agency (CIA), the National Counterterrorism Center, and 
others, to deconflict operations and realize efficiencies.

                       BUILDING PARTNER CAPACITY

    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations.
    In your view, what are our strategic objectives in building the 
capacities of partner nations?
    Answer. DOD's primary objective in building the capacity of foreign 
partners should continue to be to help them develop effective and 
legitimate security institutions that can provide for their countries' 
internal security, and contribute to regional and multilateral 
responses to threats and instability. This, in turn, mitigates the 
burden on U.S. forces responding to security threats outside the United 
States and promotes interoperability between U.S. and partner forces.
    Question. In light of demands for defense budget cuts, how would 
you assess the trade-offs between providing funding for U.S. military 
forces and providing assistance to build the capacity of partner 
nations' security forces?
    Answer. The energy and resources devoted to building partner 
capacity contribute directly to country, regional, and global security 
and better enable our partners to provide for their own security needs. 
Even modest military and security capabilities may prevent or help 
manage conflict so that the United States and its allies and partners 
are not called to intervene in a much larger conflagration at great 
cost to the United States and U.S. forces. Cooperation through security 
capacity-building efforts ensures a relationship and interoperability 
with ready partners able to participate competently in coalition or 
collaborative operations. Building partner capacity in like-minded 
partners will mean less demand on U.S. forces to lead military 
operations, enabling the United States instead to work with and through 
our partners to meet common security challenges.
    Question. What is your understanding of the purpose of the section 
1206 train and equip authority? What is your assessment of the 
implementation of the global train and equip program?
    Answer. This authority has two discrete purposes outlined in law: 
to build a partner's national military or maritime security forces' 
capacity either to: (1) conduct counterterrorist operations, or (2) 
conduct or support stability operations where U.S. forces are 
participating.
    I have not been involved in the implementation of section 1206, but 
I understand the Department has begun an in-depth assessment of the 
effectiveness of section 1206 programs. If confirmed, I will ensure the 
authority is used in keeping with the intent of the authority and that 
it produces the intended security outcomes. I will also look forward to 
sharing the results of the ongoing assessment effort with Congress, and 
specifically this committee. As I understand it, section 1206 to date 
has enthusiastic support from embassies and combatant commanders, and 
reflects close collaboration between the Department of State and the 
Pentagon.
    Question. What is the relationship of the train and equip authority 
to other security assistance authorities, such as counternarcotics 
assistance, foreign military financing, and other title 22 authorities? 
What should be done to ensure that the global train and equip authority 
does not duplicate the efforts of these other assistance programs?
    Answer. It is critical that duplication of effort among these 
activities be avoided. If confirmed, I will do everything I can to 
deconflict among them.
    The Global Train and Equip (section 1206) authority fills two 
specific legal requirements: to build capacity for counterterrorism 
operations and stability operations where U.S. forces are a 
participant. Counternarcotics authorities are focused on providing DOD 
the ability to support U.S. or other government efforts to counter the 
flow of narcotics globally. If confirmed, both section 1206 and 
counternarcotics authorities will be under my purview, and I will 
monitor their implementation to ensure they continue to be used 
appropriately, and in keeping with their intent.
    Foreign Military Financing serves broad foreign policy objectives 
such as improving bilateral relations, encouraging behavior in the U.S. 
interest, increasing access and influence, and building capacity 
particularly where host-nation and U.S. interests align. As I 
understand it, the close collaboration between DOD and the State 
Department on the development, selection, and approval of section 1206 
program ensures we make the best use of available authorities.

                        COUNTERPIRACY OPERATIONS

    Question. Since January 2009, the U.S. Navy has been patrolling the 
waters of the Gulf of Aden and off the coast of Somalia as part of the 
international coalition engaged in counterpiracy operations. The Office 
of ASD(SO/LIC) leads the Department's policy and coordination efforts 
relating to counterpiracy operations.
    What is your understanding and assessment of the Department's 
ongoing counter piracy and counter piracy support operations?
    Answer. I understand that U.S. naval forces participate in Combined 
Task Force 151, a multinational counterpiracy task force established in 
January 2009, and in the North Atlantic Treaty Organization's (NATO) 
Operation Ocean Shield. On average, there are three to four U.S. Navy 
ships supporting both of these task forces on a daily basis. Since 
2008, DOD has provided surface combatants (including helicopters and 
boarding teams), replenishment ships, P-3C maritime patrol and 
reconnaissance aircraft, communications support, and command staff in 
support of counterpiracy operations.
    Somali pirate operations have become more lucrative over the last 3 
years, demonstrating success as a business model. Despite the expansion 
of the piracy enterprise, there is still an overwhelming lack of 
judicial capacity in the region.
    The U.S. Government has focused on encouraging the use of Best 
Management Practices (BMPs) and Privately Contracted Armed Security 
Personnel (PCASP) in its outreach to industry, which DOD strongly 
supports. To date, ships that employ BMPs and armed security have a 100 
percent success rate in countering pirate attacks, strategically 
diminishing the pirates' success rate.
    Question. What do you believe to be the appropriate role of DOD in 
countering the threat posed by piracy?
    Answer. I believe that DOD should continue to support the National 
Security Council's ``Action Plan'' for countering piracy off the Horn 
of Africa by interrupting and terminating acts of piracy. Furthermore, 
DOD should continue to remain engaged with the international ``Contact 
Group on Piracy off the Coast of Somalia'' on numerous initiatives 
related to military operations, industry outreach, public diplomacy, 
legal issues, and supporting the Departments of State and Treasury in 
their efforts to make piracy less lucrative.
    Countering piracy in the region must be a shared responsibility 
with the maritime shipping industry--the first line of defense against 
pirates. The single most effective way to deter piracy is to ensure 
vessels follow BMPs and employ armed security personnel.
    The root causes of Somali piracy lie in the poverty and instability 
of Somalia. I believe that the solution to piracy does not lie in 
committing additional naval forces. Rather, addressing the problem 
depends on progress in restoring Somalia from a failed state to a 
functioning one.
    Question. Some have argued for kinetic operations against the 
network of pirates that operate in Somalia. Others argue that the 
threat of piracy is primarily a law enforcement issue and should be 
dealt with by civilian agencies.
    What is your assessment of these two views and what do you believe 
to be the most effective approach?
    Answer. I have also heard about both proposals. If confirmed, I 
look forward to learning more about these proposals, and would weigh 
the implications before deciding what I believe would be the most 
effective approach.

                             CRUSH THE CELL

    Question. In 2008, you published a book called ``Crush the Cell: 
How to Defeat Terrorism without Terrorizing Ourselves.''
    In your book, you state that U.S. counterterror policy should focus 
on ``strategic terrorism'' which you define as ``the capability to 
sustain multiple conventional attacks over time, or develop and deploy 
a single catastrophic attack with a weapon of mass destruction.''
    In your view, what terrorist organizations are strategic 
terrorists?
    Answer. I would define al Qaeda and its affiliates and adherents as 
a strategic terrorist organization.
    Question. Do you believe the National Counterterrorism Strategy is 
appropriately focused on only those organizations that pose a 
``strategic terrorist'' threat to the United States and our interests?
    Answer. I believe the National Strategy for Counterterrorism is 
appropriately focused on the preeminent security threat to the United 
States--namely al Qaeda and its affiliates and adherents. The Strategy 
also rightly ensures we remain committed to working vigorously and 
effectively to counter the efforts and activities of other foreign and 
domestic terrorists, even as we are careful to avoid conflating them 
with al Qaeda into a single enemy.
    Question. Your book is critical of Congress for creating the 
National Counterterrorism Center, Department of Homeland Security and 
the Office of the Director of National Intelligence following September 
11. You state, ``I'm convinced we could have fought this war with no 
budget increase, just a shifting of funds to counterterrorism and a new 
focus on the problem.''
    Do you still hold these views today? Why or why not?
    Answer. I was not in favor of creating new Federal bureaucracies 
after September 11. However, at this point, I would not reverse course.
    In terms of budget, I have long believed that the Federal 
Government should find off-sets for new, higher-priority missions 
whenever possible.
    Question. Your book includes a discussion of the effectiveness of 
U.S. military and intelligence personnel partnering with host nation 
personnel to conduct counterterrorism operations. You state, ``By 
working closely with foreign units, we may be able to reduce human 
rights violations associated with these operations. But if we want to 
get things done, sometimes we must work in conjunction with tough 
organizations with spotty human rights records.''
    Do you still hold these views today? Why or why not?
    Answer. When I was in the Federal Government, we were restricted 
from working with some key agencies in the Middle East and other parts 
of the world. I believe this was shortsighted, as working with them 
exposes them to operational tactics that are both more effective and 
based on protecting civilians. It is still true that many foreign 
police and intelligence agencies do not uphold the highest standards of 
human rights, but I believe we should engage both to improve their 
record and be effective in fighting terrorists--the two goals can and 
should be compatible. Of course, such engagement is currently 
restricted by law in many circumstances, and I would take care to 
oversee compliance with applicable law in contemplating any such 
engagement.
    Question. Your book expresses concern about the risk averse nature 
of senior commanders, bureaucratic decisionmaking, and separation of 
intelligence and operational functions as they relate to U.S. 
counterterrorism operations. To help solve these issues, you recommend 
that a single organization, either DOD or CIA, be assigned 
responsibility for ``special operations'' to combat terrorism. This 
recommendation echoes one made by the 9/11 Commission that lead 
responsibility for all clandestine and covert paramilitary operations 
be assigned to DOD.
    Do you still hold these views today? Why or why not?
    Answer. I wrote this 5 years ago, and much has changed. If 
confirmed, I will have the opportunity to evaluate our current 
decisionmaking process closely. I am open-minded and not sure I still 
hold those views.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes, if confirmed, I will appear before this committee and 
other appropriate committees of Congress when called upon to do so.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(SO/LIC)?
    Answer. Yes, if confirmed, I will provide this committee or members 
of this committee accurate and appropriate information to the best of 
my ability when called upon to do so.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, if confirmed, I will provide the necessary information 
to this committee and other appropriate committees and their staff when 
asked to do so.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, if confirmed, I will provide the committee the 
necessary documents when appropriate and will consult with the 
committee regarding the basis for any good faith delay or denial in 
providing documents.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Scott P. Brown

                        SPECIAL OPERATION FORCES

    1. Senator Brown. Ambassador Sheehan, last spring Admiral Olson 
testified that our Special Operations Forces (SOF) are ``fraying at the 
edges''. The current fight's high demand for SOF and its relatively 
small size has placed strain on our most elite fighting force. With the 
continuing budget cuts affecting all aspects of the military and with 
the military as a whole downsizing in troop end strength are you 
concerned about the future of our SOF?
    Mr. Sheehan. If confirmed as the Assistant Secretary of Defense for 
Special Operations Forces and Low-Intensity Conflict (ASD(SO/LIC)), I 
would place the highest priority on addressing the U.S. Special 
Operations Command (SOCOM) commander's concerns about the demand on the 
force. I would also staunchly advocate preserving programmed SOF growth 
to ensure SOCOM is sized to the current and future demand. This would 
include ensuring that SOF are resourced at a level that supports a 
sustainable rotation model that provides time in between deployments 
for reset, special skills training, professional development, and 
appropriate predeployment training.

    2. Senator Brown. Ambassador Sheehan, do you believe that our SOF 
will be able to grow at a rate of 3 to 5 percent per year that is 
currently projected?
    Mr. Sheehan. Although I have not seen the details of the current 
SOF growth plan, my general sense is that the Department has done an 
excellent job improving quality while also growing the force over the 
past 10 years. An average growth rate of 3 to 5 percent per year sounds 
reasonable to me, but I know from my own experience that this will vary 
across the force given varying complexity of skills and functions 
within the special operations community. Our core principle must be not 
to sacrifice quality for quantity as we grow and sustain SOF; and if 
confirmed as ASD(SO/LIC), I will work closely with the SOCOM commander 
to ensure our SOF accession programs are resourced and managed 
accordingly.
                                 ______
                                 
    [The nomination reference of Michael A. Sheehan follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  November 1, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael A. Sheehan, of New Jersey, to be an Assistant Secretary of 
Defense, vice Michael G. Vickers.
                                 ______
                                 
    [The biographical sketch of Michael A. Sheehan, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Michael A. Sheehan
Education:
        <bullet> U.S. Military Academy

                <bullet> 1973-1977 (BS, 1977)

        <bullet> Georgetown University School of Foreign Service

                <bullet> 1986-1988 (MSFS, 1988)

        <bullet> Army Command and General Staff College

                <bullet> (MA 1991-1992)
Employment Record:
        <bullet> Terrorism Analyst, NBC News

                <bullet> 2006 to Current

        <bullet> CEO and Partner, Lexington Security Group, LLC

                <bullet> 2007 to 2011

        <bullet> Partner, Torch Hill Equity Partners

                <bullet> 2006 to Current
                <bullet> Private equity firm (I have been unpaid and 
                inactive in the past year)

        <bullet> Fellow, Combating Terrorism Center, West Point, NY

                <bullet> 2006 to Current

        <bullet> Fellow (for counterterrorism), NYU Center for Law and 
        Security

                <bullet> 2006 to Current

        <bullet> Executive Director, Madison Policy Forum

                <bullet> 2009 to Current

        <bullet> Deputy Commissioner for Counterterrorism, NYPD

                <bullet> 2003 to 2006

        <bullet> Assistant Secretary General, U.N. Department of 
        Peacekeeping Operations (In charge of logistics, budgets, and 
        personnel for U.N. peacekeeping operations)

                <bullet> 2001 to 2003
Honors and Awards:
        <bullet> Fellow: NYU Center for Law and Security (2006 to 
        Current)
        <bullet> Fellow: Combating Terrorism Center, West Point, NY 
        (2006 to Current)
        <bullet> U.S. Army Awards: Airborne (1975), Ranger (1978), 
        Special Forces (1979), Combat Infantry Badge (for service in 
        1985, 1986)
        <bullet> Selected/Graduated from Colombian Special Forces 
        School, Lancero (1980)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael A. 
Sheehan in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael A. Sheehan.

    2. Position to which nominated:
    Assistant Secretary of Defense for Special Operations/Low-Intensity 
Conflict (SO/LIC) and Interdependent Capabilities.

    3. Date of nomination:
    1 November 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    10 February 1955; Red Bank, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sita G. Vasan.

    7. Names and ages of children:
    Alexandra Eitel Sheehan, 20.
    Michael Vasan Sheehan, 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Christian Brothers Academy High School (1972-1973).
    U.S. Military Academy, 1973-1977 (BS, 1977).
    Georgetown University School of Foreign Service, 1986-1988 (MSFS, 
1988).
    Army Command and General Staff College (MA 1991-1992).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Terrorism Analyst, NBC News (2006 to Current), 30 Rockefeller 
Center, New York, NY.
    CEO and Partner, Lexington Security Group, LLC (2007-2011), 645 
Madison Ave., 16th Floor, New York, NY.
    Partner, Torch Hill Equity Partners (2006 to Current), Private 
equity firm (I have been unpaid and inactive in the past year), 2000 
Pennsylvania Avenue, NW, Suite 5100, Washington, DC.
    Fellow, Combating Terrorism Center, West Point, NY, (2006 to 
Current), U.S. Military Academy, West Point, NY.
    Fellow (for counterterrorism), NYU Center for Law and Security 
(2006 to Current), 139 MacDougal Street, 4th Floor, New York, NY.
    Executive Director, Madison Policy Forum (2009 to current), 645 
Madison Ave., New York, NY.
    Deputy Commissioner for Counterterrorism, NYPD (2003 to 2006), New 
York City Police Department, One Police Plaza, New York, NY.
    Assistant Secretary General, U.N. Dept of Peacekeeping Operations 
(2001-2003), In charge of logistics, budgets, and personnel for U.N. 
peacekeeping operations, The United Nations, One U.N. Plaza, New York, 
NY.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Senior Advisory Group for the Director of National 
Intelligence (2008-2010).
    Coordinator for Counterterrorism. with the rank and status of 
Ambassador-at-Large. U.S. Department of State, 1998-2000, Acting 1998-
1999. Confirmed 1999-2000.
    Deputy Assistant Secretary, Bureau of International Organizations 
Affairs, Department of State (1997-1998).
    Director of Global Issues (peacekeeping, counternarcotics, low 
intensity conflict), National Security Council (1995-1997).
    Special Counselor to U.S. Permanent Representative. U.S. Mission to 
the United Nations (1993-1995).
    Director. International Programs and Intelligence Analyst. National 
Security Council (1989-1993).
    Lieutenant Colonel. U.S. Army Special Forces (1977-1997).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner. Torch Hill Equity Partners (2006 to Current).
    Periodic consultancy on international police and counterterrorism 
issues with the following organizations (All inactive except as noted):

          Boeing
          Lockheed-PAE (Active-termination in progress) UAE, Ministry 
        of Interior
          AAR Corporation
          Pacific Architect and Engineers
          CTC (Active-termination in progress)
          NBC (Active-termination in progress)

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Special Forces Association (1980-present).
    International Association of Chiefs of Police (2004-present).
    Council of Foreign Relations (1997-present).
    Veterans of Foreign Wars (1999-present).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Fellow: NYU Center for Law and Security (2006 to Current).
    Fellow: Combating Terrorism Center, West Point, NY (2006 to 
Current).
    U.S. Army Awards: Airborne (1975), Ranger (1978), Special Forces 
(1979),
    Combat Infantry Badge (for service in 1985, 1986).
    Selected/Graduated from Colombian Special Forces School, Lancero 
(1980).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Crush the Cell: How to Defeat Terrorism Without Terrorizing 
Ourselves, Michael A. Sheehan; Random House, May 2008.
    Book Chapter: ``Diplomacy'' in Attacking Terrorism, Elements of a 
Grand Strategy, edited by Audrey Kurth Cronin and James M. Ludes, 
Georgetown University Press, 2004.
    Conference Report: ``Partners in Peacekeeping: Logistics Support 
Issues of the United Nations and Troop Contributing Countries,'' United 
Nations, Department of Peacekeeping Operations, 2003.
    Book Chapter: ``Careers in International Organizations'' in the 
book Careers in International Affairs, Seventh Edition, Georgetown 
University Press, 2003.
    Journal Article: ``International Terrorism: Trends and Responses,'' 
DePaul Business Law Journal, Volume 12 Fall/Spring 1999/2000. Numbers 1 
& 2.
    Book Review: ``Blue Helmets: The Strategy of U.N. Military 
Operations, by John F. Hillen,'' Joint Force Quarterly, National 
Defense University, Spring Edition, 1998.
    Journal Article: ``Comparative Counterinsurgency Strategies: 
Guatemala and El Salvador,'' Conflict, Volume 9, November 1989.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given a variety of speeches, mainly in regards to my book; 
Crush the Cell: How to Defeat Terrorism Without Terrorizing Ourselves. 
For those speeches I have given, I primarily use note cards which I 
have not retained.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes, however the Department of Defense recently determined that my 
receipt of compensation from the United Arab Emirates, Ministry of 
Interior, as part of my consulting work through Lexington Security 
Group, LLC, violated the Emoluments Clause (U.S. Const. Art. 1, Sec. 9, 
cl. 8). This determination carries with it a monetary penalty that is 
deducted from my retirement pay. I am currently appealing the amount of 
the penalty.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to Congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Michael A. Sheehan.
    This 16th day of November, 2011.

    [The nomination of Michael A. Sheehan was reported to the 
Senate by Chairman Levin on December 15, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 17, 2011.]
                              ----------                              

    [Prepared questions submitted to Mark W. Lippert by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see a need for modification of any Goldwater-
Nichols Act provisions at this time. The Act has served the Department 
and our Nation well, fostering the spirit of a joint force that has 
enhanced the Department's capabilities to respond to critical security 
demands, such as in Operation Enduring Freedom. If confirmed, I will 
continue to consider this issue, and I will make proposals for 
modifications if, and when, required.

                                 DUTIES

    Question. Department of Defense (DOD) Directive 5111.17 assigns the 
responsibilities, functions, relationships and authorities of the 
Assistant Secretary of Defense for Asian and Pacific Security Affairs 
(ASD(APSA)). The directive establishes ASD(APSA) as the principal 
advisor to the Under Secretary of Defense for Policy and the Secretary 
of Defense on various matters relating to the Asian and Pacific 
regions, their governments, and defense establishments.
    What is your understanding of the duties and functions of the 
ASD(APSA)? Will they differ in any way from those described in DOD 
Directive 5111.17?
    Answer. The ASD(APSA) is the principal advisor to the Under 
Secretary of Defense for Policy (USD(P)) and the Secretary of Defense 
on international security strategy and policy on issues of DOD interest 
that relate to the Nations and international organizations of the Asian 
and Pacific regions, their governments, and defense establishments and 
for oversight of security cooperation programs, including Foreign 
Military Sales, in these regions. The ASD(APSA) is also responsible for 
developing regional security and defense strategy and policy, as well 
as for overseeing the implementation and coordination with appropriate 
DOD officials of such policies and strategies.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My experience on Capitol Hill, at the National Security 
Staff, and in the military have provided me with a unique skill set and 
the relationships that will allow me to be effective at managing a 
large issue portfolio and staff.
    As the Chief of Staff to the National Security Staff, my duties 
often required me to work at senior levels of the U.S. Government on a 
number of issues related to the East and South Asia region. In this 
capacity, I collaborated closely with key U.S. officials (such as NSS 
Senior Directors and officials of various agencies) on a range of 
policy matters, participated in bilateral and multilateral meetings, 
and coordinated foreign travel conducted by the President. I also 
performed similar functions with respect to the Obama-Biden Transition 
Project. During my tenure in these positions, I was responsible for 
helping to manage complex organizations with large numbers of employees 
and/or volunteers.
    As a staff member of the U.S. Senate, I held three different 
positions over the course of a decade, each of which required me to 
engage on East Asia and Pacific Rim issues. As foreign policy advisor 
to then-Senator Obama, I handled all of the Asia-related work for the 
Senator on the Foreign Relations Committee, including spearheading 
early efforts to combat avian flu in Asia. As a professional staff 
member on the State-Foreign Operations Subcommittee of the 
Appropriations Committee, I dealt frequently and extensively with East 
Asia-Pacific issues especially related to U.S. bilateral and 
multilateral assistance programs and associated legislation. As an aide 
to Senator Daschle (Democratic Policy Committee), I worked on issues 
such as the accession of China to the World Trade Organization.
    During my time in the military, I deployed in support of Joint Task 
Force operations in Afghanistan. I helped to manage a number of 
intelligence professionals spread out over a large forward deployed 
area, facilitating timely intelligence support for multiple direct 
action operations. I was selected to lead multiple, post-operation 
mitigation efforts with senior Afghans and coalition military and 
political leaders. As a reservist at the Office of Naval Intelligence, 
I was selected to work on highly-specialized projects concerning a key 
nation in East Asia.
    As for my education, I was awarded an M.A. in International Policy 
Studies from Stanford University. My coursework included a Stanford 
University-Beijing University study abroad program which focused on 
Mandarin language training (as well as continued Chinese language 
studies upon return to the United States).

                             RELATIONSHIPS

    Question. If confirmed, what will be your relationship with:

          The Secretary of Defense
          The Deputy Secretary of Defense
          The Under Secretary of Defense for Policy
          The Under Secretary of Defense for Intelligence
          The Chairman of the Joint Chiefs of Staff
          Commander, U.S. Pacific Command
          Commander, U.S. Central Command
          Commander, U.S. Special Operations Command
          Other Combatant Commanders
          The Service Secretaries and Service Chiefs
          The Assistant Secretary of Defense for International Security 
        Affairs
          The Assistant Secretary of Defense for Homeland Defense and 
        Americas' Security Affairs
          The Assistant Secretary of Defense for Global Strategic 
        Affairs
          The Assistant Secretary of Defense for SO/LIC
          Commander, U.S. Forces Korea

    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I expect to develop and maintain a close working relationship 
with under secretaries and assistant secretaries across the Department, 
the General Counsel of DOD, the Secretaries of the Military 
Departments, the Chairman and Vice Chairman of the Joint Chiefs of 
Staff, the Combatant Commanders, and as appropriate, the Commander, 
U.S. Forces, Korea. If confirmed, I would also work closely with and 
coordinate with the other Assistant Secretaries of Defense within the 
Office of the Secretary of Defense (OSD) Policy. Examples of this 
coordination include working with the Assistant Secretary of Defense 
for International Security Affairs on the role of NATO in Afghanistan; 
the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict on counterterrorism, counternarcotics, and security 
assistance matters; the Assistant Secretary of Defense for Homeland 
Defense and Americas' Security Affairs on humanitarian assistance and 
disaster relief efforts in Asia; and the Assistant Secretary of Defense 
for a Global Strategic Affairs to implement the Proliferation Security 
Initiative in the Asian and Pacific regions.

                       CHALLENGES AND PRIORITIES

    Question. In your view, what are the major challenges that will 
confront the next ASD(APSA)?
    Answer. I think the administration has rightly acknowledged that 
Asia is increasingly critical to U.S. prosperity and security 
interests. This is evident from the administration's steadfast 
commitment to defeating al Qaeda and countering violent extremism in 
South and Central Asia and efforts to enhance U.S. relationships across 
the Asia-Pacific region. At the broadest level, I believe the most 
significant challenge for the entire DOD is managing a changing global 
security environment in an era of budget austerity. As Secretary 
Panetta has noted, the Department faces hard, but manageable, choices 
in order to maintain a globally engaged force amidst domestic fiscal 
constraints.
    In Afghanistan, I note undeniable progress on the security front--
particularly in the core goal of disrupting, dismantling, and 
ultimately defeating al Qaeda. U.S. forces along with Afghan and 
coalition partners are degrading the insurgency, building up the Afghan 
security forces, and continuing to transition key areas of the country 
to Afghan lead for security. Pakistan continues to remain a critical 
part of the fight against al Qaeda, and despite the many challenges in 
this relationship, I believe we need to continue to work closely with 
Pakistan to combat the extremists that threaten U.S. and regional 
security and stability.
    In the Asia-Pacific region, I think the administration has rightly 
focused on the need to support key norms and principles that benefit 
all nations. China's military buildup continues to pose anti-access/
area-denial challenges and shift the cross-Strait balance in the 
mainland's favor. It remains important to encourage greater 
transparency from China about how it will use its growing capabilities.
    It is also vital to modernize and enhance U.S. regional security 
alliances, including efforts to enhance defense posture in the Asia-
Pacific region. Finally, I think it will be essential to continue the 
administration's strong efforts to address the increase in non-
traditional threats beyond violent extremism, such as the proliferation 
of nuclear and ballistic missile technologies, competition for scarce 
resources, and devastating natural disasters. If confirmed, I look 
forward to working with Congress to address these issues.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I believe the administration has done a good job of putting 
in place the right strategies and plans to address the challenges 
facing the next ASD(APSA). These issues, and the plans associated with 
them, are always evolving. If confirmed, I would work closely with 
others in the Department, the interagency, Congress, and our 
international allies and partners to adapt and shape these strategies 
for the future. I would analyze current strategies, review the results 
of the recent strategy reviews, and participate in ongoing policy 
reviews as deemed necessary. If confirmed, I look forward to 
collaborating closely with the committee on the range of challenges and 
opportunities in the Asia-Pacific region.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(APSA)?
    Answer. Strategies for dealing with the set of challenges facing 
the ASD(APSA) are largely in place in DOD and in other departments and 
agencies within the U.S. Government, and are reflected in agreements 
with our allies and partners in the region. If confirmed, I see the 
challenge as principally one of careful, sustained execution of these 
strategies. However, if confirmed, I will be carefully evaluating 
current strategies to determine if a reordering of priorities, 
applicable to ASD(APSA), is in order. Overall, the key priorities are 
to continue to make progress against al Qaeda and its affiliates in 
Afghanistan and Pakistan; to broaden and deepen existing alliances, 
while developing our ties to new allies and partners; to work on a 
constructive relationship with China; to enhance the development of 
action-oriented regional organizations that can tackle shared 
challenges; and to ensure that the U.S. military is postured to protect 
and advance American interests in this critical region.
    In Afghanistan and Pakistan, the priority will remain to disrupt, 
dismantle, and eventually defeat al Qaeda and affiliates, and to 
prevent their return to either country, while increasing the capacity 
of the Afghan National Security Forces and the Afghan Government so 
they can assume the lead for Afghanistan's security by the end of 2014. 
If confirmed, I will work first and foremost to ensure the U.S. 
military stays on track and has the guidance and tools required to 
succeed in these missions.
    With regard to China, it is my understanding that DOD seeks a 
healthy, stable, reliable, and continuous military-to-military 
relationship with China's People's Liberation Army (PLA), in support of 
President Obama and the People's Republic of China (PRC) President Hu's 
vision for a positive, cooperative, and comprehensive bilateral 
relationship. Strengthening the military-to-military relationship 
serves a critical role in shaping China's choices, as does the 
continued adaptation of U.S. forces, posture, and operational concepts 
to ensure a stable and secure environment.
    U.S. regional security alliances remain vital, and central to the 
larger regional strategy. If confirmed, I will make it a priority to 
continue to broaden and deepen the U.S. defense and security agenda 
with allies and partners, expanding areas of cooperation even while 
reinforcing traditional missions of deterrence and reassurance. 
Finally, if confirmed, I will work to support the Department's effort 
to maintain and enhance defense posture and capabilities across the 
Asia-Pacific region.

                           ENGAGEMENT POLICY

    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, joint 
combined exchange training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement with nations in Asia. I believe the current and 
emerging security environment will require robust engagement with the 
militaries of our allies and partners around the world, and building 
productive relationships with many States in which our past military-
to-military engagements have been limited or absent entirely.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Yes.

                          STABILITY OPERATIONS

    Question. Experience in Iraq has underscored the importance of 
planning and training to prepare for the conduct and support of 
stability operations in post-conflict situations.
    In your view, what is the appropriate relationship between DOD and 
other departments of government in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. DOD has played and will continue to play an important role 
supporting other key U.S. departments and agencies in stability and 
support operations post-conflict.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq?
    Answer. Operations in Iraq demonstrate that long-term success 
requires a robust capacity for integrated civil-military action and 
substantially more resources to support the expeditionary capacity of 
other key departments and agencies. Long-term success will also require 
close cooperation between DOD and other U.S. Government departments in 
planning, preparing for and conducting stability and support 
operations, both in terms of DOD participation in whole-of-government 
efforts and for interagency participation in the review of military 
campaign and contingency planning. The U.S. military must plan and 
train with civilian counterparts, be prepared to operate effectively in 
all phases of conflict, and develop better awareness of political, 
cultural, and economic factors to ensure that our actions will meet our 
objectives.

                       BUILDING PARTNER CAPACITY

    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (section 1206).
    In your view, what are our strategic objectives in building the 
capacities of partner nations in the Asia and Pacific region?
    Answer. The United States' primary objective in building the 
capacity of foreign partners should continue to be to help them develop 
effective and legitimate security institutions that can provide for 
their countries' internal security, and contribute to regional and 
multilateral responses to threats and instability. This, in turn, 
mitigates the burden on U.S. forces responding to security threats 
outside the United States and promotes interoperability between our 
forces.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority?
    Answer. As I understand it, this authority has two discrete 
purposes outlined in law: to build a partner's national military or 
maritime security forces' capacity either to: (1) conduct 
counterterrorist operations; or (2) conduct or support stability 
operations where U.S. forces are participating.
    Question. Former Secretary of Defense Robert Gates called for an 
expansion of the Government's resources devoted to instruments of non-
military ``soft power''--civilian expertise in reconstruction, 
development, and governance.
    In your view, what should be the role of DOD, vis-a-vis other 
civilian departments and agencies of the Government, in the exercise of 
instruments of soft power?
    Answer. In my view, the Department's role should generally be to 
support, not lead, in the exercise of soft power.

                           AFGHANISTAN POLICY

    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. Yes, I support the strategy that the President has set 
forth, and I believe it is the right strategy. A focused 
counterinsurgency campaign will allow us to help the Afghans build 
security forces and government capacity capable of providing the 
security and basic services necessary to achieve a peaceful, stable 
Afghanistan that does not again become a safe haven for terrorists.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan? For example, would you support an 
increase in counterterrorism action in Afghanistan?
    Answer. I believe the U.S. strategy in Afghanistan is sound. The 
administration tracks metrics on progress toward its objectives in 
Afghanistan throughout the year, and constantly assesses and adjusts 
its implementation of the overall strategy. Counterterrorism is a 
significant part of the counterinsurgency strategy, and managing the 
balance of all aspects of the strategy is an ongoing process.
    Question. Do you support the President's decision to withdraw the 
33,000 U.S. surge forces from Afghanistan, with 10,000 troops to be 
withdrawn by the end of this year and the remaining 23,000 troops to 
return by next summer?
    Answer. Yes. I support a responsible, conditions-based drawdown as 
called for by the President. I believe we have made the progress 
necessary to allow us to begin to bring home U.S. surge forces.

                         AFGHANISTAN TRANSITION

    Question. At the NATO Summit in Lisbon last November, the 
participants in the International Security Assistance Force endorsed 
President Karzai's goal of the Afghanistan National Security Forces 
(ANSF) having the primary responsibility for providing security 
throughout Afghanistan by 2014.
    Do you support the goal of transitioning responsibility for 
security throughout Afghanistan to the Afghan security forces by 2014?
    Answer. Yes. As I understand it, the transition to Afghan security 
lead in the first tranche of provinces and municipalities has 
progressed smoothly and without any significant increase of enemy-
initiated attacks in those areas. The administration's transition 
strategy, as adopted at the November 2010 NATO Lisbon Summit, is to 
complete security transition nationwide by the end of 2014.
    Question. In your view, how important is it to the 
counterinsurgency effort in Afghanistan that the transition of primary 
responsibility to the Afghan security forces for providing security 
throughout Afghanistan be completed by 2014?
    Answer. In my view, the current goal of completing transition by 
the end of 2014--as proposed by President Karzai and confirmed by our 
allies and partners at the November 2010 NATO Lisbon Summit--is 
important to our effort in Afghanistan. A key element of U.S. strategy 
is building an increasingly capable and professional Afghanistan 
National Security Force (ANSF) that can protect its citizens. To that 
end, my understanding is that the administration is focused on 
increasing the size, quality and performance of the ANSF to ensure the 
successful transition of security lead to Afghan control.
    With an increasingly capable ANSF, the Afghan Government has been 
able to begin the process of transitioning areas to Afghan security 
lead--a process that began in July 2011 and will continue through 2014. 
As a result, about 25 percent of the Afghan population now lives in 
areas where the ANSF have lead security responsibility. The Afghan 
Government will soon announce a second set of areas to begin the 
transition process, and will likely include locations where 
approximately 50 percent of Afghans live.
    Question. In your view, what are the main challenges to the success 
of the transition to an Afghan lead for security throughout the country 
by 2014?
    Answer. Safe havens for insurgents in Pakistan, and Afghan capacity 
in the governance and development areas, remain the most challenging 
aspects of transition. The limited capacity of the Afghan Government to 
manage development programs and fill government positions at the 
national and subnational levels hinders the ability to assume 
leadership on these lines of operation. Efforts in these areas must 
underpin the success of the security transition in order to achieve 
durable stability in Afghanistan.

                  AFGHANISTAN NATIONAL SECURITY FORCES

    Question. According to a recent DOD report, the NATO training 
mission has met its target end strength of 305,000 ANSF by October of 
this year. The Afghan Government has approved a new ANSF target end 
strength of 352,000 by 2012 comprised of 171,600 Afghan National Army 
(ANA) and 134,000 Afghan National Police (ANP).
    What is your assessment of the progress in developing a 
professional and effective Afghanistan National Security Forces (ANSF)?
    Answer. My assessment is that the ANSF, in partnership with U.S. 
and NATO forces, have made enormous progress in size and quality over 
the past 2 years and remain ahead of schedule for their growth targets 
this year. In addition, both the ANA and ANP have made significant 
gains in effectiveness and professionalism. The establishment of the 
Afghan Local Police (ALP) program has also fostered greater local 
capability to resist insurgents. However, real challenges remain, such 
as stemming attrition rates.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. Some of the main challenges to building the capacity of the 
ANSF include poor literacy rates and low education levels in the Afghan 
population, which constrain the development of operational enablers, 
including logistics, aviation, medical, and communications 
capabilities. These capabilities will be necessary for an increasingly 
self-sufficient ANSF to ensure Afghanistan does not again become a safe 
haven for terrorists. NATO Training Mission-Afghanistan has put 
considerable attention on, and resources toward, the literacy 
challenge. Another key challenge is the development of strong and 
capable leaders, which will take time and experience to cultivate. If 
confirmed, I would work with military and civilian leaders and 
international partners to explore ways to bolster ANSF capabilities.

                   AFGHAN GOVERNANCE AND DEVELOPMENT

    Question. While improving security for the Afghan people is 
critical, the success of the counterinsurgency strategy in Afghanistan 
also depends on improving the Government of Afghanistan's capacity to 
provide governance, better services, and economic development. 
Significant concerns remain over the performance of the Government of 
Afghanistan in meeting the needs of the Afghan people and fighting 
corruption.
    What do you see as the role for DOD in building the capacity of the 
Government of Afghanistan to deliver services, provide better 
governance, improve economic development, and fight corruption in 
Afghanistan?
    Answer. The role of DOD should be a supporting one. Improving 
governance and economic development is crucial to our strategy in 
Afghanistan. Although the Department of State (DOS) and the U.S. Agency 
for International Development (USAID) are the lead agencies within the 
U.S. Government on governance and development initiatives in 
Afghanistan, DOD contributes to this effort and cooperates closely with 
DOS and USAID. Coordinating DOD stabilization projects with civilian 
reconstruction and development efforts ensures that the military and 
civilian activities work together to support longer-term development 
objectives, as well as near-term stabilization. If confirmed, I would 
emphasize continued close coordination of these interconnected civilian 
and military efforts.

                    RECONCILIATION AND REINTEGRATION

    Question. Under what conditions, if any, should reconciliation 
talks with the Taliban leadership be pursued? In your view, should 
negotiations be pursued with the leadership of the Haqqani network? If 
so, under what conditions?
    Answer. The President has clearly outlined U.S. support for an 
Afghan-led process to pursue a political resolution to the conflict in 
Afghanistan. I support the Afghan Government's efforts to reconcile 
with groups who agree to cut ties with al Qaeda, cease violence, and 
accept the Afghan Constitution.
    I would defer to the Department of State for further discussion of 
reconciliation issues.
    Question. In your view, what role should Pakistan play in any 
reconciliation talks?
    Answer. I believe Pakistan should play a constructive role in the 
effort to bring peace and stability to Afghanistan.
    Question. What is your understanding and assessment of the current 
program for reintegrating insurgent fighters willing to lay down their 
arms? What additional steps, if any, should be taken to improve the 
reintegration program?
    Answer. I understand that, since the Afghan Government established 
the Afghanistan Peace and Reintegration Program last summer, the 
Afghans--with international community support--have made steady 
progress in establishing the support structures to implement the 
program at the national and sub-national levels. The High Peace Council 
and working-level Joint Secretariat have conducted extensive outreach 
activities to spread awareness of this new program. There is a steady 
entry of reintegration candidates (now more than 2,700) into the 
program, and I believe the program has inspired informal reintegration 
as well. The international community should continue its support for 
program implementers and for the Afghan interagency cooperation 
necessary to reintegrate these former fighters in a timely way.

               U.S. STRATEGIC RELATIONSHIP WITH PAKISTAN

    Question. In September, then-Chairman of the Joint Chiefs of Staff 
Admiral Mike Mullen testified to the committee that he believed a 
``flawed and difficult relationship [with Pakistan] is better than no 
relationship at all.''
    Do you agree with Admiral Mullen regarding maintaining a ``flawed'' 
relationship with Pakistan? Why or why not?
    Answer. Our relationship with Pakistan is not always easy, but it 
is vital to our national security and to our regional interests. The 
core national security goal remains to disrupt, dismantle, and defeat 
al Qaeda and its affiliates to ensure that they do not have safe havens 
in Afghanistan and Pakistan, and to eliminate their capacity to 
threaten the United States, our allies, and interests abroad. Over the 
past several years, the United States has made major progress in 
reducing al Qaeda's ability to conduct transnational attacks. As 
Secretary Panetta has said, ``the United States is within reach of 
strategically defeating al Qaeda''. At the same time, there are serious 
questions about Pakistan's ability to prevent its territory from being 
used as a safe haven by the Haqqani network and other militant 
extremists to attack coalition forces in Afghanistan. Therefore, I 
believe it is essential to continue working with Pakistan to eliminate 
these safe havens.
    The U.S. military-to-military relationship with Pakistan, like our 
overall relationship, has seen good and bad phases. Pakistan has 
suffered more than 11,000 military personnel killed or wounded and more 
than 30,000 civilian causalities in recent years from terrorist 
actions, most recently in the significant attacks following the Osama 
bin Laden operation. Therefore, the United States has a shared interest 
with Pakistan in preventing terrorism. As President Obama has said, 
``We have killed more terrorists on Pakistani soil than anywhere else, 
and that could not have been done without their cooperation.''
    Question. What do you believe are the United States' key strategic 
interests with regard to Pakistan?
    Answer. I believe the United States' interests in the region and in 
Asia more broadly require a stable and constructive relationship with 
Pakistan. The fact that Pakistan is a nuclear state that faces internal 
threats from extremist organizations adds to the importance of a 
continued relationship with Pakistan. Preventing, if possible, a 
potential Pakistan-India conflict is another important strategic 
interest. It is in the United States' interest for Pakistan to have a 
strong, civilian-led government and an open society, to live in peace 
and security with its neighbors, and to ensure its nuclear assets 
remain secure, in accordance with international standards.
    If confirmed, I will continue to support DOD's efforts in 
coordination with our interagency partners for a constructive and 
mutually beneficial relationship with Pakistan, aimed at advancing 
shared national security objectives.

                          THE HAQQANI NETWORK

    Question. A number of recent deadly attacks on Afghan, U.S., and 
other coalition forces in Afghanistan have allegedly been linked to the 
Haqqani network operating from safe havens across Afghanistan's border 
with Pakistan. The Pakistan intelligence agency, the Inter-Services 
Intelligence (ISI), appears to provide support to the Haqqani network, 
which then-Chairman of the Joint Chiefs of Staff Admiral Mike Mullen 
has called a ``veritable arm'' of the Pakistani ISI.
    What is your understanding of the rules of engagement for U.S. 
troops in Afghanistan who are subjected to cross-border attacks from 
Haqqani or other insurgent forces on the Pakistan side of the 
Afghanistan-Pakistan border?
    Answer. My understanding is that U.S. forces in Afghanistan are 
authorized to act in self-defense when they are under attack. I 
understand that ISAF and CENTCOM are working with the Pakistanis to 
improve cross-border coordination.
    Question. Do you agree that it is essential, if U.S.-Pakistan 
relations are ever to be normalized, that Pakistan eliminate its 
support for the Haqqani network and denounce the cross-border attacks 
conducted by the Haqqanis and other insurgents against Afghan and 
coalition forces in Afghanistan? Why or why not?
    Answer. The ability of violent extremist groups to find support and 
safe haven in Pakistan poses a significant threat to U.S. forces, the 
NATO mission, and the long-term stability of Afghanistan. Attacks 
against U.S. and coalition personnel are unacceptable. It is Pakistan's 
responsibility to prevent attacks from its territory on others, 
including Afghanistan and our forces there. If Pakistan does not 
address these threats, the United States will have to consider a range 
of options, but it is best when we have Pakistan's cooperation. 
Pakistan has legitimate concerns that should be understood and 
addressed by the Afghan Government in any process to bring about a 
stable and durable political solution in Afghanistan. But Pakistan also 
has responsibilities of its own, including taking decisive steps to 
ensure that the Afghan Taliban and affiliated organizations cannot 
continue to conduct the insurgency from Pakistani territory. Increased 
action is particularly critical with groups such as the Haqqani 
network, who continue to maintain close ties to al Qaeda and other 
violent extremist organizations that pose real threats not only to the 
United States, but also to the people and Government of Pakistan.
    Pakistani military leaders cannot pick and choose among militant 
groups. However, Pakistan remains a critical country in the fight 
against terrorists. Therefore, I believe we should continue to work 
closely with Pakistan to act against the extremists that threaten U.S. 
and Pakistani security, and pursue a stable, peaceful, and prosperous 
region. As Secretary Clinton stated in her testimony to the House 
Foreign Affairs Committee on October 20, working with our Afghan and 
Pakistani partners is not always easy, but these relationships are 
advancing U.S. national security interests, and walking away from them 
would undermine those interests.
    Question. Would you support designating the Haqqani network as a 
Foreign Terrorist Organization in accordance with section 219 of the 
Immigration and Nationality Act, as amended? Why or why not?
    Answer. I would defer to the Secretary of State regarding 
designation of the Haqqani network as a Foreign Terrorist Organization. 
It is in the interests of both Pakistan and the United States to 
eliminate terrorists and safe havens. As Secretary Clinton told the 
Pakistanis, ``There will be dire consequences for Pakistan as well as 
Afghanistan if this threat from the terrorist networks is not 
contained, at the very least, because there's no way that any 
government in Islamabad can control these groups.''

                      U.S. ASSISTANCE TO PAKISTAN

    Question. The United States has provided significant military 
assistance to Pakistan, including foreign military financing and 
training and equipment through the Pakistan Counterinsurgency Fund 
(PCF) to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations. In addition, the United States 
has provided significant funds (``Coalition Support Funds'') to 
reimburse Pakistan for the costs associated with military operations 
conducted by Pakistan along the Afghanistan-Pakistan border and other 
support provided in connection with Operation Enduring Freedom. More 
recently, the United States has suspended assistance to Pakistan under 
the PCF and Coalition Support Funds pending greater cooperation from 
Pakistan.
    In your view, under what conditions, if any, would it be in the 
U.S. strategic interest to resume the provision of PCF assistance and 
Coalition Support Fund reimbursements to Pakistan?
    Answer. In my view, the current ``train-advise-equip'' programs 
with the Pakistan military and paramilitary forces have been an 
important component in pursuing the objective of improving Pakistan's 
counterterrorism and counterinsurgency capabilities and improving 
cross-border coordination. Going forward, it is vital that Pakistan 
live up to its responsibilities, including to cooperate fully in 
counterterrorism matters, to expand its counterinsurgency campaign 
against all extremists and militant groups that have found safe haven 
inside Pakistan. I understand that in the wake of the Osama bin Laden 
raid, the administration asked Pakistan to take a number of concrete 
steps to demonstrate its continued commitment to a cooperative and 
mutually beneficial relationship. Future provision of security-related 
assistance will be informed by Pakistan's response to these requests. 
If confirmed, I will work with Congress to ensure that the support the 
United States provides yields the results we seek.

                       DETAINEE TREATMENT POLICY

    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes, I believe that DOD should always maintain principled 
and legal standards for detainee treatment and comply fully with the 
law, keeping in mind that the manner in which we treat our own 
detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.

                    FORCE POSTURE IN THE USPACOM AOR

    Question. In connection with his recent trip to the U.S. Pacific 
Command (PACOM) area of responsibility, Secretary Panetta stated that 
``the United States remains committed to a robust forward presence in 
Asia.'' Significant changes to the U.S. force posture in the region are 
planned over the next several years, including movement of marines from 
Okinawa to Guam and the relocation of U.S. forces within South Korea. 
There are also discussions about increasing presence in southern parts 
of the Asia-Pacific, including countries like Australia and Singapore, 
and developing more comprehensive engagement strategies with a number 
of other countries in the region. These initiatives will likely compete 
with other global commitments for increasingly constrained funding.
    If confirmed, how would you propose to make the tradeoffs and tough 
choices necessary to manage risks that might result from a U.S. 
commitment to a ``robust'' forward presence in Asia in light of other 
global commitments and in the face of a shrinking DOD budget?
    Answer. In keeping with Secretary Panetta's recent statements I 
believe it is essential that the United States maintain an enduring 
military presence that provides a tangible reassurance that the United 
States is committed to Asia's security, economic development, and the 
prosperity essential to the region's success. It is also important to 
ensure that the Department maintains a fiscally responsible approach to 
a defense posture that maximizes U.S. resources. In many cases, it is 
most efficient to sustain our global posture by forward stationing a 
portion of our forces closer to where they will be used. Doing so 
maximizes the capability of our military, giving us ``more for less,'' 
and potentially offsetting the impact of necessary force structure 
cuts.
    If confirmed, I would work with my counterparts across the 
Department and our Commanders in the field to assess the potential 
global tradeoffs, risks, and budgetary implications associated with any 
changes in U.S. forward presence in the Asia-Pacific.
    Question. In your opinion, what should be the United States' 
national security priorities in the Asia-Pacific?
    Answer. As outlined in the 2010 National Security Strategy, the 
United States must develop a positive security agenda for the region. 
DOD's priorities include protecting U.S. territory, citizens, and 
allies; deterring aggression and maintaining regional stability; 
maintaining free and open access to the maritime, air, and space 
domains; deterring and defeating violent extremism; and preventing the 
proliferation of weapons of mass destruction and their associated 
materials.
    Question. In your view, what strategic criteria, if any, should 
guide the posture of U.S. military forces in that region to best 
address those priorities at acceptable risk?
    Answer. I agree with DOD's assessment that we should establish a 
more geographically distributed, operationally resilient, and 
politically sustainable posture in the Asia-Pacific region.
    Question. What, in your view, does ``robust'' forward presence 
mean?
    Answer. In my view, a ``robust'' forward presence connotes a 
powerful, capable, military presence--one that is sufficient for a wide 
range of contingencies and activities across the range of military 
operations.
    I believe the Department must keep pace with changes in the Asia-
Pacific security environment that pose profound challenges to 
international security, such as the rise of new powers, the growing 
influence of non-state actors, and the potential spread of weapons of 
mass destruction (WMD).
    As such, I believe the Department should maintain an enduring 
military presence in the Asia-Pacific region that provides a tangible 
reassurance that the United States is committed to Asia's security. To 
do so, as the Secretary has consistently said, will require that U.S. 
posture in the region be geographically distributed, operationally 
resilient, and, of course, politically sustainable.
    My understanding is that the Department is seeking to distribute 
U.S. forces geographically into Southeast Asia, Oceania, and the Indian 
Ocean region to address the significant security challenges we face 
across the entirety of the region. This will allow the United States to 
perform the types of missions our forces are more likely to face in the 
future--combating terrorism, responding to natural disasters, and 
strengthening regional stability. Consulting closely with U.S. allies 
and partners, and tailoring defense posture appropriately will allow 
the United States to respond more effectively to the wide range of 
challenges confronting the Asia-Pacific region in the 21st century.
    In East Asia, a robust presence is one that continues to support 
our long-time alliances while also ensuring our force remains 
operationally resilient in response to any future challenges. The 
United States must ensure that our regional allies and partners are 
confident in the continued strength of our deterrence against the full 
range of potential threats.
    Question. How, if at all, do the methods of forward basing, 
rotational forces, and agreements with allies for training and 
logistics activities throughout the region contribute to ``robust'' 
forward presence?
    Answer. From my understanding, DOD views posture as a combination 
of three elements: forces, footprint, and agreements. Forces are U.S. 
military, capabilities, equipment, and units assigned and rotationally 
deployed overseas. Footprint is the term the Department uses to 
describe the overseas network of infrastructure, facilities, land, and 
propositioned equipment. Lastly, ``agreements'' are the series of 
treaties and access, transit, support, and status protection agreements 
and arrangements with allies and partners that set the terms of U.S. 
military presence within the territory of a host country, as agreed 
with the host government. In combination, these elements underwrite the 
Department's ability to develop a robust forward presence and project 
military power in support of our national interests.
    Some of these elements are more flexible than others, and this fact 
dictates the ways in which the Department can adapt its current posture 
to changes, including changes in the security environment, new 
diplomatic realities, or mounting budgetary pressure. For posture, I 
believe the whole is greater than the sum of its parts--not only is 
posture the fundamental enabler of U.S. defense activities overseas, it 
is also central to defining and communicating U.S. strategic interests 
to allies, partners, rivals, and adversaries.
    Question. In your view, is the right mix of these forward presence 
methods necessary to achieve an affordable theater posture at 
acceptable levels of risk? If so, how would you propose broadly 
assessing each method relative to its cost and benefit?
    Answer. Yes. Finding the right mix of forward stationed and 
rotational forces is one of the U.S.'s toughest challenges; requiring 
continuous review and assessment with respect to the evolving strategic 
environment, national interests, regional threats, opportunities, and 
our operational requirements to respond to crises. The right mix of 
presence provides the United States affordable regional posture at an 
acceptable level of military risk.
    I believe the Department must ensure defense posture reflects the 
unique regional and political security dynamics by harmonizing the 
right combination of relationships and agreements, forward-stationed 
forces, rotational presence, prepositioned equipment, and basing 
infrastructure to enable the Department to prevent and deter conflict, 
prepare to defeat adversaries, and succeed in a wide range of 
contingencies. This will naturally include the appropriate mix of 
assigned and rotationally allocated forces in theater in order to meet 
operational requirements in the most efficient manner.
    Question. How important is a forward basing strategy to the ability 
of PACOM to execute its day-to-day mission? Its operational contingency 
plans?
    Answer. I believe the United States' forward-basing strategy is 
critical to enable PACOM's execution of both its day-to-day operations 
as well as operational contingency plans. U.S. forward presence 
provides unique capabilities that can be flexibly deployed, employed, 
and sustained in a timely manner across a wide spectrum of operations 
and contingencies.
    Question. What do you see as the implications, if any, of the 
planned force posture changes in Korea, Japan, and Guam on the U.S. 
commitment to the Asia-Pacific region in general? How does the planned 
relocation of U.S. forces from Okinawa to Guam improve U.S. security in 
the region? How does the planned relocation of U.S. forces on the 
Korean Peninsula improve security?
    Answer. As the administration considers posture changes in the 
Asia-Pacific region, my understanding is that we are seeking to build a 
presence that is geographically distributed, operationally resilient, 
and politically sustainable. As this effort evolves, I understand that 
our goal is to sustain the U.S. presence in Northeast Asia, while 
enhancing it in Southeast Asia. I believe that all of the initiatives 
underway support these broad objectives.
    Question. What is your understanding of the plans for the possible 
U.S. military presence in Australia and how, in your view, will such a 
presence advance U.S. security interests?
    Answer. It is my understanding that in November 2010, the 
Department established a working group with our Australian counterparts 
to develop options to align our respective force postures in ways that 
would benefit the national security of both countries. In September 
2011, at the Australia-United States Ministerial Consultations (AUSMIN) 
meeting in San Francisco, Secretaries Clinton and Panetta discussed a 
number of options aimed at positioning the military forces of both 
nations to respond in a timely and effective way to contingencies, 
including humanitarian assistance and disaster relief, and to enhance 
their ability to train and exercise together and with regional 
partners. As I understand it, these options will demonstrate the 
strength of the U.S.-Australia alliance and the combined resolve to 
enhance regional stability and security.
    Question. In your view, are the levels of funding, manning and 
military-to-military engagement in the Asia-Pacific region appropriate 
to the management of current and future risk to U.S. strategic 
interests in the region? Do you foresee a requirement to increase or to 
decrease those funding levels in the coming years?
    Answer. If confirmed, I will work with my colleagues in DOD and our 
military commanders to assess the appropriate levels of funding, 
personnel, and military-to-military engagement necessary to meet our 
strategic objectives in the Asia-Pacific region.

                                 CHINA

    Question. China is viewed by some in the United States as an 
emerging adversary that poses a potential threat to security in the 
region, and by others as a constructive international partner that 
should be welcomed and integrated into the international economic and 
political community. Others yet believe we are at a crossroads 
somewhere between those two scenarios.
    How would you characterize the current U.S. relationship with 
China?
    Answer. As President Obama stated in January 2011, the United 
States seeks a positive, cooperative, and comprehensive relationship 
with China. I would describe the relationship as cooperative and 
competitive. The United States continues to pursue opportunities to 
engage where there is mutual benefit while discussing frankly areas 
where we may have differences.
    Question. To what extent do you believe the policies and actions of 
the United States and other major regional and international actors 
will affect the direction in which China develops?
    Answer. I believe that U.S. policies and actions can influence the 
direction of China's development. No country has done more to assist, 
facilitate, and encourage China's national development and integration 
into the international system than the United States. However, U.S. 
policy and actions, or the policies and actions of any country or group 
of countries for that matter, cannot alone determine China's future 
which, in many ways, will be based upon the choices that China's 
leaders make. More fundamentally, the United States can also help to 
shape the environment in which China makes its strategic choices, and 
in so doing, encourage China to ``do the right thing''.
    Question. What do you see as the impact of current global economic 
challenges on stability and security in China specifically, and in the 
Asia-Pacific region generally?
    Answer. The full impact of the global economic crisis upon China 
and stability in the Asia-Pacific region more broadly will continue to 
play out over time. But those who manage defense and security issues 
must be attentive to the connections between security and economic 
issues, and be prepared to work together with colleagues in economic 
and diplomatic fields, both to guard against negative outcomes and also 
to seek positive ways forward where they may exist.
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region.
    What do you believe are the objectives of China's steady increase 
in defense spending and its overall military modernization program?
    Answer. China appears to be building the capability to fight and 
win short duration, high-intensity conflicts along its periphery. Its 
near-term focus appears to be on preparing for potential contingencies 
involving Taiwan, and to deter or deny effective intervention in a 
cross-strait conflict. Its modernization efforts emphasize anti-access 
and area denial capabilities. China is also devoting increasing 
attention and resources to conducting operations beyond Taiwan and 
China's immediate periphery. Beijing's growing focus on military 
missions other than war includes humanitarian assistance, non-combat 
evacuation operations, and counterpiracy support. Lastly, China is 
strengthening its nuclear deterrent and enhancing its strategic strike 
capabilities through the modernization of its nuclear forces, and is 
improving other strategic capabilities, such as in space and counter-
space operations and in computer network operations.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. The United States has been and should remain the pivotal 
military power in the Asia-Pacific region. The United States' response 
to China's military modernization should be flexible and supported by 
the continued transformation of our force posture in the Asia-Pacific 
region, the maintenance of our global presence and access, the 
modernization of our own capabilities in such areas as countering anti-
access and area denial, and the strengthening of our alliances and 
partnerships.
    Question. What do you believe are the Chinese political-military 
goals in the Asia-Pacific region? Globally?
    Answer. Broadly, the overriding objectives of China's leaders 
appear to be to ensure the continued rule of the Chinese Communist 
Party, continue China's economic development, maintain the country's 
domestic political stability, defend China's national sovereignty and 
territorial integrity, and secure China's status as a great power. 
Within this context, preventing any moves by Taipei toward de jure 
independence is a key part of Beijing's strategy. Within each dimension 
there lies a mix of important challenges and opportunities for the 
United States that will continue to deserve priority attention.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. In terms of regional security, China's economic growth has 
increased China's international profile and influence, and has enabled 
China's leaders to embark upon and sustain a comprehensive 
transformation of its military forces. The pace and scale of China's 
military modernization, coupled with the lack of transparency, raise 
many questions, both within the United States and in the region as a 
whole, about China's future.
    Other countries in the region are closely watching the growth of 
China's military, and how its military acts. Although on the one hand 
China has recently deployed its first hospital ship, conducting good-
will missions far from its shores, on the other hand, there have been 
worrisome incidents in disputed waters in China's neighboring seas that 
have caused concern in nations such as the Philippines and Vietnam. 
Security concerns regarding Chinese military intentions have 
contributed to a greater focus on regional forums, such as the 
Association of South Asian Nations (ASEAN), where issues may be 
addressed multilaterally; such security concerns have also led to 
stronger and more welcoming relations with the United States as a 
security partner of choice.
    Question. How do you assess the current cross-strait relationship 
between China and Taiwan, and how can we help prevent miscalculation on 
either side?
    Answer. Taiwan has made significant strides to reduce tensions in 
the Taiwan Strait. These initiatives should be encouraged. I believe 
the United States can help to prevent miscalculation on either side by 
continuing to abide by our longstanding policies, based on the three 
joint U.S.-China Communiques and the Taiwan Relations Act, including 
making available to Taiwan ``defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' Such a continued commitment by 
the United States will allow Taiwan to continue its outreach to the PRC 
without fear of coercion.
    Question. How do China's efforts to establish a strategic presence 
in the Indian Ocean by securing and maintaining access to various 
seaports in South and Southeast Asian countries affect its political-
military posture and influence in the region?
    Answer. China looks to South and Southeast Asia as an area of 
strategic importance, which includes political objectives, access to 
resources, trade, and investment. With regard to South and Southeast 
Asian sea-ports, the important question is how China intends to use its 
presence. The United States retains strong relationships in South and 
Southeast Asia and should continue to monitor China's growing presence 
in the region.
    Question. What are your views of China's deployment of warships to 
counter piracy in the western Indian Ocean and how does this deployment 
contribute to China's ability to project power?
    Answer. Generally speaking, I see China's participation in 
counterpiracy operations as a positive development that contributes to 
addressing a global security challenge and demonstrates China's ability 
to use its military in a positive, constructive, and responsible 
manner. It is more than likely that from this experience China could 
begin to develop capabilities that would enhance its ability to sustain 
a deployed force over an extended period of time.
    Question. What is the role of DOD in helping to ensure that China's 
nuclear power industry does not contribute to the proliferation of 
nuclear weapons in the region?
    Answer. The Obama administration has reiterated that preventing the 
proliferation of weapons of mass destruction and delivery systems, 
along with related technologies and materials, is a key goal for the 
United States. I believe that DOD should work in the interagency 
process to ensure that any proliferation concerns relating to China, 
including its nuclear power industry, are expressed to the Chinese 
Government in appropriate forums, and should similarly support the 
development of appropriate interagency responses in the event that 
China takes steps that do contribute to nuclear proliferation.
    Question. Our military-to-military relations with the Chinese 
military can be characterized as modest at best and the Chinese 
approach to these relations can be accurately described as ``on again, 
off again''. Clearly, one thing that has hobbled U.S.-China military 
relations has been China's history of canceling or postponing military-
to-military engagements in response to U.S. arm sales to Taiwan.
    What is your assessment of the current state of U.S.-China 
military-to-military relations?
    Answer. I have long supported a continuous dialogue between the 
armed forces of the United States and China to expand practical 
cooperation where our national interests converge and to discuss 
candidly those areas where we have disagreement. Such dialogue can be 
especially important during periods of friction and turbulence.
    I believe we should continue to use military engagement with China 
as one of several means to demonstrate U.S. commitment to the security 
of the Asia-Pacific region, to encourage China to play a constructive 
role in the region, and to press China to partner with the United 
States and our Asian allies and partners in addressing common security 
challenges.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly work if China is willing to reciprocate 
with transparent and substantive discussions and engagements. If 
confirmed, I would look for ways to deepen and enhance our military-to-
military relationship with China, and to encourage China to act 
responsibly both regionally and globally.
    Question. What is your view regarding the longstanding U.S. policy 
of selling defense articles and services to Taiwan despite objections 
and criticism from China?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. The Act also states that the President and Congress shall 
determine the nature and quantity of such defense articles and services 
based solely upon their judgment of the needs of Taiwan. That policy 
has contributed to peace and stability in the region for more than 30 
years and is consistent with the longstanding U.S. calls for peaceful 
resolution of the Taiwan issue in a manner acceptable to the people on 
both sides of the Taiwan Strait. I believe our arms sales have been 
carried out in a responsible manner.
    Question. In your view, to what extent, if at all, should China's 
possible reaction to such sales be considered by the United States when 
making decisions about the provision of defense articles and services 
to Taiwan?
    Answer. None. The United States should not be held hostage to any 
potential reaction China may have in response to arms sales to Taiwan. 
The Taiwan Relations Act provided that the United States will make 
available to Taiwan such defense articles and defense services in such 
quantity as may be necessary to enable Taiwan to maintain a sufficient 
self-defense capability.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air, and 
space. There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea. In one such incident, 
Chinese-flagged ships harassed the USNS Impeccable, a U.S. military 
ship conducting ocean surveillance in the international waters of the 
South China Sea. That incident underscored the nature of Chinese 
maritime claims and the Chinese sensitivity associated with U.S. Navy 
operations in these areas.
    What role should the United States play in the ongoing maritime 
dispute in the South China Sea?
    Answer. As Secretary Gates affirmed at the Shangri-La Dialogue in 
June of this year, and Secretary Clinton affirmed at the ASEAN Regional 
Forum meeting in July of this year, the United States is a Pacific 
nation that has a national interest in freedom of navigation, open 
access to Asia's maritime domain, the maintenance of peace and 
stability, free and open commerce, and respect for international law in 
the South China Sea.
    I agree with the assessments of the Departments of State and 
Defense that the United States should not take a position on the 
competing territorial claims over land features in the South China Sea, 
and I believe all parties should resolve their disputes through 
peaceful means and in accordance with customary international law, 
without resorting to the threat or use of force. The United States 
should sustain its presence in the South China Sea and uphold its 
commitments to its allies and partners in order to maintain peace and 
stability in the region.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. The U.S. Navy is a key provider of the military presence 
that underlies peace and stability across the globe, including in the 
South China Sea. Although the United States does not take a position on 
the territorial and maritime disputes, I believe it is essential for 
the U.S. Navy to maintain its presence and assert its freedom of 
navigation and overflight rights in the South China Sea in accordance 
with customary international law.
    If confirmed, I will work with our military commanders to evaluate 
the appropriate level of naval activities in the South China Sea to 
maintain regional peace and stability as well as unimpeded access for 
lawful commerce and economic development.
    Question. What should the United States do to help prevent 
dangerous encounters in the South China Sea?
    Answer. To reduce the risk of conflict in the South China Sea, I 
believe the United States should use its position in several regional 
organizations, including the East Asia Summit, the ASEAN Regional 
Forum, and the ASEAN Defense Ministers Meeting Plus, to facilitate 
initiatives and confidence-building measures that will help claimant 
states reach agreement on a binding Code of Conduct in the South China 
Sea. Additionally, the United States should encourage all claimants to 
abide by international ``rules of the road'', such as the International 
Regulations for Preventing Collisions at Sea, to ensure greater 
operational safety and reduce the risk of dangerous incidents at sea.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber warfare capabilities, and would likely seek to take 
advantage of U.S. dependence on cyber space in the event of a potential 
conflict situation.
    What is your understanding of China's efforts to develop and deploy 
cyber warfare capabilities?
    Answer. It is my understanding that in 2010, numerous computer 
systems around the world, including those owned by the U.S. Government, 
were the target of intrusions, some of which appear to have originated 
within the PRC. These intrusions were focused on exfiltrating 
information. Although this alone is a serious concern, the accesses and 
skills required for these intrusions are similar to those necessary to 
conduct computer network attacks. I also understand that developing 
capabilities for cyber warfare is consistent with authoritative 
People's Liberation Army military writings. Additionally, China's 2010 
Defense White Paper noted China's own concern over foreign cyber 
warfare efforts and highlighted the importance of cyber-security in 
China's national defense.
    Question. If confirmed, what would you do to help ensure our 
military is protected in cyber space and prepared to defend against a 
cyber attack?
    Answer. The United States, like many other nations, has been the 
target of innumerable malicious activities via cyber space from 
hackers, criminals, and unidentified entities, some of which may well 
be nation states. I understand that numerous steps have been taken to 
increase network defense and monitoring capabilities. This work 
continues actively today. DOD should continue to evaluate all global 
threats to its networks and work closely with other government 
agencies, industry, and the international community in order to meet 
those threats. If confirmed, I will work closely with the Assistant 
Secretary of Defense for Global Strategic Affairs, the lead for cyber 
policy, on these efforts.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of missile and satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. In my view, this test was just one element of China's 
military modernization effort to develop and field disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare. The United States' goal should 
be to promote the responsible use of space.
    Question. What do you see as the long-term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. Space systems are vital to our national security and our 
economy. In this regard, the United States should seek ways to protect 
our interests in space. U.S. space policies and programs should be 
informed by China's space and counterspace capabilities, which have 
contributed to today's challenging space environment. I believe we need 
to enhance our deterrence and ability to operate in a degraded 
environment. At the same time, the United States should seek to engage 
China, a major space-faring nation, to promote the responsible use of 
space. However, our concern should not be focused on only one country, 
but on the range of actors that make space increasingly congested, 
contested, and competitive.
    Question. What are your views regarding the potential weaponization 
of space and the international agreements to prevent space 
weaponization?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, including that all nations have a right to explore and 
use space for peaceful purposes, and that all nations should act 
responsibly in space to help prevent mishaps, misperceptions, and 
mistrust.
    Space is vital to U.S. national security and that of our allies and 
partners. I support our longstanding national policies of affirming the 
right of all nations to use outerspace for peaceful purposes, the right 
of free passage through space, and the right to protect our forces and 
our Nation from those that would use space for hostile purposes.

                                 TAIWAN

    Question. Much of the recent discourse regarding Taiwan has 
involved the state of Taiwan's defensive military capabilities and the 
U.S. commitment to do what is ``necessary to enable Taiwan to maintain 
a sufficient self-defense capability'' as required by the Taiwan 
Relations Act (TRA). In particular, much of the debate about how best 
to enhance Taiwan's current defensive capabilities has revolved around 
fighter aircraft and what air defense capabilities are most prudent and 
appropriate under the circumstances.
    What is your view of the current state of U.S.-Taiwan security 
relations?
    Answer. In my view, U.S.-Taiwan security relations are excellent 
and have never been stronger. DOD engages Taiwan at every level to 
ensure that it maintains its ability to deter aggression from the 
China.
    Question. What do you believe should be the priorities for U.S. 
military assistance to Taiwan?
    Answer. I believe our priority should be to assist Taiwan in the 
implementation of an innovative defense strategy to deter aggression 
from China. Taiwan cannot compete militarily with China; it must 
develop a future defense force that is capable of limiting China's 
ability to coerce Taiwan.
    Question. What is your opinion of the TRA? Enacted 30 years ago 
this year, do you see any need to modify the TRA to reflect the current 
state of affairs in the region? If so, how?
    Answer. I believe DOD has a special responsibility to monitor 
China's military developments and to deter aggression and conflict. The 
TRA has served our country and the region well and has helped guarantee 
peace and stability in Northeast Asia for more than 30 years. 
Consistent with the TRA, DOD assists in maintaining the capacity of the 
United States to take appropriate actions, as determined by the 
President and Congress in accordance with U.S. constitutional 
processes, in response to threats to the security or the social or 
economic system of the people on Taiwan. DOD works closely with its 
interagency partners to make available to Taiwan defense articles and 
services in such quantities to enable Taiwan to maintain a sufficient 
self-defense capability. This is consistent with longstanding policy 
that has provided a basis for maintaining security and stability across 
the Taiwan Strait. I believe that the TRA is a good law that makes for 
good policy.
    Question. Given the increasing military imbalance across the Taiwan 
Strait, do you think Taiwan is making appropriate investments in its 
defensive capabilities? If not, what is the best way to encourage 
Taiwan to invest more in its military?
    Answer. My view is that Taiwan needs to increase its defense budget 
to 3 percent of its GDP. The under-resourcing of Taiwan's defense 
jeopardizes Taiwan's security and sends the wrong signal to Beijing.
    I believe that the best way to encourage Taiwan to invest more in 
its military is to send strong and consistent messages from both the 
executive and legislative branches of the U.S. Government to Taiwan.
    Question. What military capabilities do you believe would be most 
effective in improving Taiwan's self-defense capability over the next 5 
to 10 years?
    Answer. In my view, Taiwan needs to implement a defense strategy 
that includes asymmetric solutions that undermine the offensive 
capabilities of the PLA. This strategy requires systems that are 
survivable. Survivability is enhanced through the implementation and 
integration of measures that include mobility, redundancy, integration, 
camouflage, concealment, quantity, deception, decoys, hardening, and 
joint operations. This defense strategy would not replace traditional 
military approaches; however, it would ensure that in a crisis Taiwan's 
defenses would be more effective.
    Question. Do you think the United States should sell new F-16 C/D 
aircraft to Taiwan?
    Answer. Given the nature of the multi-dimensional threat that 
Taiwan faces and the need to prioritize and ensure that Taiwan has a 
full range of self-defense articles and services (as opposed to simply 
one platform), I believe that Taiwan needs multiple capabilities and 
methods that will provide Taiwan the means to defend itself. I believe 
that retrofitting Taiwan's F-16 A/B is a higher priority than 
assimilating new F-16 C/D airframes into Taiwan's air force. The F-16 
A/B retrofit would provide Taiwan with a robust aircraft that is nearly 
equivalent to the F-16 C/D in its capabilities. There are a number of 
other weapons systems that provide important capabilities at reasonable 
cost and should be a higher priority than Taiwan purchases of F-16 C/
Ds.

                              NORTH KOREA

    Question. North Korea still represents one of the greatest near-
term challenges to security and stability in Asia and deterring 
conflict on the Korean peninsula remains a top U.S. priority.
    What is your assessment of the current security situation on the 
Korean peninsula and of the diplomatic efforts to date to persuade 
North Korea to comply with international mandates regarding its missile 
and nuclear programs?
    Answer. North Korea's provocative behavior, large conventional 
military, proliferation activities, and pursuit of asymmetric 
advantages through its ballistic missile and weapons of mass 
destruction (WMD) programs, including uranium enrichment, present a 
serious threat to the United States, our allies and partners in the 
region, and the international community. The opaque nature of the North 
Korean system, coupled with an uncertain political transition, add to 
our concerns. The two North Korean attacks against South Korea last 
year provide a sober reminder that Pyongyang is willing to utilize its 
capabilities to undertake provocative actions. I believe the United 
States must work with its allies and other key partners in the region 
and internationally on diplomatic solutions to the range of pressing 
concerns we face with North Korea. Under the appropriate conditions, 
diplomatic engagement with North Korea is important as well. The U.S. 
commitment to its allies has helped preserve deterrence against North 
Korea, but deterrence alone will not bring issues of North Korean 
compliance to a close. Diplomacy too is essential for a lasting 
resolution to the nuclear, missile, and proliferation threats we face.
    Question. What is your understanding of the threat posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities, and the export of those capabilities?
    Answer. North Korea's missile and WMD programs pose a direct and 
serious threat to our regional allies and partners and have the 
potential to become a direct threat to U.S. territory. The United 
States must continue to monitor carefully North Korea's WMD and missile 
development programs and related proliferation activities. If 
confirmed, I would ensure that DOD continues to work closely with other 
parts of the U.S. Government to address these and other emerging 
threats, reduce our vulnerabilities and those of our allies and 
partners, and work cooperatively with our allies to ensure our 
contingency planning remains adaptive and responsive.
    Question. What concerns you most about North Korea?
    Answer. North Korea maintains a large, offensively-postured 
conventional military; it continues to develop long-range ballistic 
missiles; it seeks to develop nuclear weapons; and it engages in 
proliferation of WMD in contravention of international norms and law. 
What concerns me most is that this range of threats comes from a single 
actor who stands on the outside of the international community.

                           REPUBLIC OF KOREA

    Question. The longstanding alliance between the United States and 
the Republic of Korea (ROK) has been a key pillar of security in the 
Asia-Pacific region. This relationship, while strong, is undergoing 
substantial changes in terms of command and control and force laydown 
over the next several years.
    What is your understanding of the current status of the U.S. 
security relationship with South Korea?
    Answer. In my view, the U.S.-ROK alliance remains one of the 
cornerstones of U.S. strategy in the Asia-Pacific region and is as 
strong and viable today as it has ever been. This was most recently 
reaffirmed by the Secretary during his travel and participation in the 
Security Consultative Meeting in Seoul on October 28, 2011. Our 
security relationship is based on mutual commitment to common 
interests, shared values, continuous dialogue, and combined planning, 
ensuring a comprehensive strategic alliance.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-South Korean security relationship?
    Answer. As I understand it, DOD and the ROK continue to work 
closely to realign U.S. forces on the Peninsula and to prepare for the 
transition of wartime operational control to the ROK by December 2015. 
If confirmed, I would support this continued realignment and the return 
of facilities that our forces no longer require. The United States is 
also working toward developing new command and control relationships 
with Korea, which will ensure that contingency plans remain appropriate 
to changing circumstances. Additionally, I believe it is important to 
ensure the U.S. and Korean publics continue to understand the enduring 
mutual benefits derived from this alliance, and that the United States 
works effectively with the ROK as it plays an increasing role in 
regional and global security issues commensurate with the ROK's 
economic status and influence. If confirmed, I would work hard to 
maintain close contact with my ROK counterpart and to build upon the 
solid foundation developed to date to improve and transform this 
important security relationship.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place by the end of 2015?
    Answer. I understand that the United States and the ROK have a 
comprehensive way forward to transition wartime operational control by 
December 2015. If confirmed, I will work with my ROK counterpart to 
complete this process under the Strategic Alliance 2015 framework, 
ensuring the transition is implemented methodically and validating that 
the combined defense posture remains strong and seamless.
    Question. How do we ensure that we continue to protect our vital 
regional interests, while continuing meaningful progress toward the 
transfer of command and control to the Republic of Korea and the 
relocation of U.S. forces on the Korean Peninsula?
    Answer. I believe regional interests are best protected through our 
presence in the region, strong alliances, and further developing 
mechanisms that enhance our abilities to engage in the region. A good 
example in Korea is the Secretary's effort to formalize the Korea-U.S. 
Integrated Defense Dialogue, a senior-level policy consultative 
channel, as an umbrella framework that encompasses various defense 
dialogue mechanisms between the ROK and the United States to ensure 
high-level political oversight and synchronization of alliance 
objectives.
    Question. Do you support expanding the number of U.S. personnel 
assigned to the Korean Peninsula for 2- or 3-year tours of duty and 
increasing the number of military and civilian personnel authorized to 
be accompanied by their dependents for these longer assignments?
    Answer. I understand tour normalization in Korea was designed to 
further our commitment to support our forward-stationed forces and 
family members. It was to be implemented on an ``as affordable'' basis 
and not according to any specific timeline. However, as Secretary 
Panetta has said, DOD is taking a hard look at everything that costs a 
lot of money, as this would. If confirmed, I will continue to assess 
thoroughly the cost of implementation and our proposed force posture to 
determine the best way forward.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. In accordance with the commitment to the Mutual Defense 
Treaty between the United States and the ROK, U.S. presence on the 
Korean Peninsula serves to deter potential aggressors from taking 
hostile actions that would threaten the peace and security of the 
Republic of Korea. In my view, this presence has both deterred further 
war on the Korean Peninsula and contributed to the stability of the 
Northeast Asia region. The U.S.-ROK alliance is transforming to ensure 
a capable and relevant forward presence for the future security 
environment. For U.S. forces in Korea, it is my understanding that the 
principles of force management decided at the 42nd Security 
Consultative Meeting in 2010 provide greater flexibility for regional 
and global deployments. As ROK military forces have served and will 
continue to serve with the U.S. military in places off the Peninsula 
(e.g., Iraq, Afghanistan, and in the Gulf of Aden), I believe the U.S.-
ROK alliance will continue to serve an important role regionally and 
globally.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. The two plans work to consolidate and relocate U.S. forces 
from north of Seoul and from the Seoul metropolitan area to locations 
south of Seoul, primarily U.S. Army Garrison Humphreys and Daegu. The 
movement of units and facilities to areas south of the Han River 
improves force protection and survivability, placing the majority of 
personnel and equipment outside of the tactical effective range of 
North Korean artillery. In addition, the move to a central location 
outside of Seoul provides efficiencies, reduces costs, contributes to 
the political sustainability of our forward presence, and improves 
military readiness on the Korean Peninsula.
    Question. Since the North Korean attacks last year--the sinking of 
the South Korean navy ship Cheonan and the artillery attack on the 
South Korean island--South Korea has been adamant that it will respond 
``firmly'' to the next such provocation. A main topic during recent 
U.S.-ROK Security Consultative Meetings was reportedly the Joint 
Operational Plan for responding to future North Korean provocations.
    What is your understanding of the U.S. obligations in the event of 
an attack on South Korea by North Korea, and under what circumstances 
do you believe the U.S. Armed Forces should be committed to engage 
North Korean forces in response to an attack on South Korea?
    Answer. My understanding is that, under the Mutual Defense Treaty, 
when the political independence or security of South Korea or the 
United States are threatened by external armed attack, the United 
States and South Korea will consult together and develop appropriate 
means to deter the attack. Given the pattern and future likelihood of 
North Korean provocations, the two sides should continue to consult 
closely so that responses are effective.
    Question. The February 2010 Ballistic Missile Defense Review Report 
established a policy and program priority for defending against near-
term regional ballistic missile threats, and elaborated on the Phased 
Adaptive Approach (PAA) to regional missile defense, including to 
defend against North Korean ballistic missile threats.
    Do you support the missile defense policies and priorities 
established in the Ballistic Missile Defense Review, including the PAA 
to missile defense in the Asia-Pacific region to defend against North 
Korean regional ballistic missile threats?
    Answer. Yes, I support the missile defense policy priorities 
established in the Ballistic Missile Defense Review, including the 
implementation of PAA to regional missile defense that are tailored to 
the threats in each region and capabilities best suited for deployment. 
It is my understanding that the administration is currently developing 
a PAA to missile defense for the Asia-Pacific region that builds on our 
current missile defense efforts in the region.
    Question. There has been some speculation, mainly in the South 
Korean press, that recent incidents in South Korea, such as allegations 
of assault by U.S. soldiers on Korean civilians and environmental 
issues associated with U.S. bases, may cause the ROK to seek to 
renegotiate some of the terms of the current Status of Forces Agreement 
(SOFA) between the United States and the Republic of Korea.
    What is your opinion regarding whether or not the United States 
should reopen the SOFA to renegotiate any of the terms?
    Answer. I believe the SOFA has served the alliance well since its 
inception in 1967. The U.S.-ROK SOFA is a living document that is 
constantly reviewed and kept current and fresh through the work of the 
Joint Committee, the Special Joint Committee, and some 20 subject 
matter subcommittees that consult frequently with their counterparts 
across the ROK Government. Although the SOFA has been updated twice 
through long, difficult negotiations in 1991 and 2001, the Joint 
Committee process has approved thousands of implementing arrangements 
that effectively address the way in which the SOFA is implemented. This 
process has served both countries well over the years and continues to 
be the best path to address SOFA-related issues.

                                 JAPAN

    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan relationship is the cornerstone of security 
in East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our alliance has held fast through the 
turbulence of the post-Cold War, political turnover in Japan, and some 
contentious trade disputes, and now stands poised to become a truly 
global alliance. The United States and Japan are in the middle of a 
complicated realignment process that is part of a larger alliance 
transformation agenda that also includes a review of roles, missions, 
and capabilities to strengthen and ensure the relevance, capability, 
and cohesiveness of the alliance for the next several decades. The 
updated Common Strategic Objectives announced at the Security 
Consultative Committee in June 2011 highlight the alliance's ambitious 
agenda, which I fully support.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea, and South Korea, influence the 
U.S.-Japan relationship?
    Answer. I believe it is important for Japan to continue to 
cultivate constructive relations with all of its neighbors. By moving 
forward, Japan and other East Asian nations can increase their security 
cooperation. Working with other U.S. allies and partners in the region, 
Japan can increase its contribution to peace, security, and prosperity 
throughout Asia and globally. Japan is a valued and essential partner 
in the Six-Party Talks process and in other important regional security 
architectures.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. The security environment in Asia is changing and the United 
States needs a more capable alliance with Japan to deal with those 
challenges, including greater interoperability between our Armed Forces 
at the strategic, operational, and tactical levels. If confirmed, I 
would work to encourage Japan's increasing contributions to the 
alliance, both regionally and globally. I would also encourage 
trilateral security cooperation with the Republic of Korea and with 
Australia, as these kinds of activities effectively strengthen the 
functional capacity of the emerging regional security architecture. 
Cooperation and the development of complementary and mutually 
reinforcing capabilities should range from missile defense to increased 
bilateral training opportunities--in Guam, for example.
    Question. What is your view of the U.S.-Japanese joint development 
of the Standard Missile-3, Block IIA missile defense interceptor, and 
of the overall program of cooperation between the United States and 
Japan on ballistic missile defense?
    Answer. Ballistic missile defense cooperation with Japan is a 
success story for the alliance and has resulted in Japan's fielding of 
both sea- and land-based missile defense systems. Japan is one of our 
most important ballistic missile defense partners, and U.S.-Japan 
bilateral cooperation on ballistic missile defense plays an important 
role in supporting our common strategic objectives on defense. The SM-3 
Block IIA is an important cooperative program that will result in a 
significant increase in ballistic missile defense capability.
    Question. Currently, the 2006 Roadmap Agreement between the United 
States and Japan links the closure of the Futenma Marine Corps Air 
Station on Okinawa and the movement of U.S. marines from Okinawa to 
Guam to the plan to build a Futenma Replacement Facility (FRF) at Camp 
Schwab on Okinawa. The plan to build the FRF has run into difficulty 
and, as a result, the closure of Futenma and the movement of marines 
remain uncertain.
    What is your opinion of the prospects for the successful 
construction of the Futenma Replacement Facility at Camp Schwab on 
Okinawa?
    Answer. I believe that the Government of Japan (GOJ), like the U.S. 
Government, remains committed to the 2006 Realignment Roadmap, and 
although both governments have acknowledged that the Futenma 
Replacement Facility will not be constructed by 2014, as originally 
planned, there appears to be positive movement on the construction of a 
replacement facility at Camp Schwab.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. I believe the cost-arrangement between the United States 
and Japan as outlined in the May 2006 Security Consultative Committee 
(SCC) document known as the Realignment Roadmap is equitable and 
appropriate. For relocations within Japan, the GOJ is paying the lion's 
share of the costs to develop new facilities. The GOJ also understood 
the strong desire of Okinawa residents for the relocation of Marine 
Corps forces from Japan to Guam to occur rapidly and recognized that 
this move--which it explicitly sought--would not happen without 
substantial investment on its part. Spending less than 1 percent of its 
gross domestic product on its national defense, yet desiring the 
continued presence of U.S. forces in close proximity, Japan could also 
clearly justify financial support for U.S. military construction within 
a U.S. territory on the grounds that it is making a direct contribution 
to Japanese security and to overall alliance burdensharing. This 
decision was not without controversy in Japan, as it is highly 
unusual--perhaps even unprecedented--for a host country to pay for U.S. 
forces to relocate out of that country. It will be important for DOD to 
work closely with the GOJ on the project scope, management, and other 
factors to minimize risks to the efforts.
    Question. How, in your view, does building an unpopular new 
airfield on Okinawa, one that could take 7 to 10 years to finish at a 
cost of at least $3.6 billion, serve to improve the U.S.-Japan 
relations in general and the U.S. military-Okinawa relations in 
particular?
    Answer. It is my understanding that the relocation to the Futenma 
Replacement Facility will enable the closing of Marine Corps Air 
Station Futenma (MCAS Futenma), which is located in a very densely 
populated portion of Okinawa. I believe both the U.S. and Japanese 
Governments recognize that retaining the Marine Corps air assets on 
Okinawa, while moving them to a relatively isolated part of the island, 
is essential to the operational readiness of the Marine Corps ground 
units stationed there. Successive Japanese and U.S. Government 
officials have examined this problem, and have concluded that the 
vicinity of Henoko and Camp Schwab is the best place for this 
capability.
    Question. What do you see as the implications, if any, of the 
planned force posture changes in Korea, Japan, and Guam on the U.S. 
commitment to the Asia-Pacific region in general? How does the planned 
relocation of U.S. forces from Okinawa to Guam improve U.S. security in 
the region? How does the planned relocation of U.S. forces on the 
Korean Peninsula improve security?
    Answer. As this administration considers posture changes in the 
Asia-Pacific region, my understanding is that we are seeking to build a 
presence that is geographically distributed, operationally resilient, 
and politically sustainable. I understand that our goal is to sustain 
the U.S. presence in Northeast Asia, while enhancing it in Southeast 
Asia. I believe that all of the initiatives underway, including changes 
on the Korean Peninsula as well as Okinawa and Guam, support these 
broad objectives.

                                 INDIA

    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. In my view, a close and continuing security relationship 
with India will be important for security in Asia and for effectively 
managing Indian Ocean security in the 21st century. The United States 
and India have a range of common security interests that include 
maritime security, counterterrorism, and humanitarian assistance and 
disaster relief. Over the past decade, there has been a rapid 
transformation in the U.S.-India defense relationship. What was once a 
nascent relationship between unfamiliar nations has now evolved into a 
strategic partnership between two of the preeminent security powers in 
Asia. Today, U.S.-India defense ties are strong and growing. Our 
defense relationship involves a robust slate of dialogues, military 
exercises, defense trade, personnel exchanges, and armaments 
cooperation. Efforts over the past 10 years have focused on 
relationship-building and establishing the foundation for a long-term 
partnership. The strong ties between our two militaries reflect this. 
It is also my understanding that the United States remains committed to 
a broad defense trade relationship that enables transfers of some of 
our most advanced technologies.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I believe our priorities for this 
relationship should be focused on increasing maritime security 
cooperation, expanding the military-to-military relationship, and 
deepening cooperation on defense trade and production. Additionally, I 
believe there is potential for cooperating on counterproliferation, 
collaborating on humanitarian assistance and disaster response, dealing 
with piracy, cooperating on counterterrorism, greater intelligence 
sharing on common threats, and working towards stability in Afghanistan 
and the broader Indian Ocean region.
    Question. What, in your view, is the effect on DOD interests, if 
any, of the civil-nuclear cooperation agreement with India?
    Answer. The civil-nuclear cooperation agreement was a landmark 
agreement that significantly transformed the U.S.-India bilateral 
relationship. The agreement has also deepened the level of trust 
between the United States and India that will have positive effects on 
DOD interests and will hopefully lead to greater military-to-military 
cooperation and increased defense trade.
    Question. What is your assessment of the relationship between India 
and China and how does that relationship impact the security and 
stability of the region?
    Answer. As Asia's two largest powers, India and China collectively 
will have a significant impact on Asia's future security landscape. 
Both countries are in the process of building their respective military 
capabilities. It is important to engage actively with both of these 
Asian powers to ensure they both contribute in a positive way towards 
Asian stability and security. Both countries should adhere to 
international norms and standards in their resolution of outstanding 
issues.
    Question. What do you believe the United States should do to assist 
the Indian Government in the prevention of and response to terrorist 
events in India?
    Answer. As the world's largest democracy, I believe that India is a 
critical strategic partner of the United States. Both India and the 
United States share an interest in preventing terrorism. 
Counterterrorism cooperation with India is led by the Departments of 
State and Homeland Security, with support from DOD. If confirmed, I 
will work with both Departments to consider carefully all requests for 
counterterrorism assistance from India.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. In announcing the return to talks in early February, India 
and Pakistan's foreign secretaries agreed that a number of outstanding 
issues were on the table, including Kashmir, counterterrorism, 
humanitarian issues, and trade. It is good to see both nations make 
progress on these fronts. In early November, Pakistan's cabinet 
approved extending Most Favored Nation trade status to India. 
Subsequently, India and Pakistan's Prime Ministers met on the sidelines 
of the recent South Asia Association for Regional Cooperation (SAARC) 
summit in the Maldives, where they heralded a new chapter in their 
relationship. I understand there will be talks soon on nuclear and 
conventional confidence-building measures, which will be critically 
important. I am pleased that both nations continue to engage with each 
other, and I am hopeful that confidence-building measures are able to 
take root to promote a greater level of trust between the two 
countries.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. India, Pakistan, and Afghanistan are linked by history, 
culture, language, and trade, and regional stability cannot be achieved 
without the cooperation of all three countries. It is critically 
important that Afghanistan work to build positive relationships with 
all of its neighbors. In my view, the strategic partnership between 
India and Afghanistan is a bilateral matter between these two 
countries. It is my understanding that both countries have made clear 
that their partnership is not directed at any other countries. This 
should not be seen as a threat to Pakistan, nor a statement that 
Pakistan is no longer part of the solution. I believe it is the 
administration's view that India and Afghanistan should be transparent 
with their neighbors, including Pakistan, on the content of their 
partnership and the activities they carry out under it. I support this 
position because it has the best chances for stability of Central and 
South Asia.

                      REPUBLIC OF THE PHILIPPINES

    Question. What is your view of the current state of U.S.-
Philippines military-to-military relations?
    Answer. The Philippines is one of five treaty allies of the United 
States and is a committed bilateral and regional partner, especially in 
combating terrorism. The alliance with the Philippines remains strong, 
and the Philippines remains important to the United States and to 
regional stability in general.
    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. I believe U.S. defense goals should be to deny safe haven, 
sanctuary, and training areas for terrorist groups; and to partner in 
cooperative regional maritime security programs. These goals are best 
achieved through U.S. Government security assistance and security 
cooperation programs.
    Question. What is your assessment of recent U.S. military efforts 
in the Philippines and the effectiveness of the U.S. assistance being 
provided to the Philippines military in its fight against insurgent 
groups?
    Answer. In my view, the U.S. military is working effectively with 
the armed forces of the Philippines to provide assistance that is 
consistent with Philippines constitutional restrictions on foreign 
forces. The Philippines armed forces continue to professionalize and 
reform in a manner consistent with U.S. and Philippine defense goals 
and objectives. They benefit from various security assistance programs, 
exercises, and engagement opportunities that develop capacity and 
capability with their military. These efforts have resulted in 
successful counterterrorism operations against the Abu Sayaf Group and 
Jemah Ismaliya in the Southern Philippines. Lastly, it is my 
understanding that our security engagement programs have also resulted 
in better regional maritime security cooperation.
    Question. Do you anticipate a reduced U.S. military footprint or 
change in mission for U.S. military forces in the Philippines in the 
near- to mid-term?
    Answer. In my view, it is important to support the Philippines 
military in its operations in the south. It is my understanding that 
DOD is monitoring progress and plans to assess whether there needs to 
be an adjustment in the overall mission. If confirmed, I will work to 
coordinate these efforts with other departments and agencies with an 
eye towards a whole-of-government approach.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat or law enforcement in the Republic of the Philippines?
    Answer. In my view, the established current policy guidelines are 
clear: the Mutual Defense Treaty and the Visiting Forces Agreement 
guide bilateral policy with the Republic of the Philippines. The 
Philippines constitution prevents foreign forces from conducting combat 
operations in the Philippines. Deployed U.S. forces will continue to 
comply with these limitations set by the Philippines Government.

                               INDONESIA

    Question. Indonesia is a key Asian power and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible. Last summer, Secretary Gates announced that DOD intended to 
resume working with elements of the Indonesian Special Forces, known as 
Kopassus. DOD engagement with Kopassus had been suspended for more than 
a decade because of past human rights violations by some of its 
members.
    What is your view of the current state of military-to-military 
relations with Indonesia and, specifically, Kopassus?
    Answer. The U.S.-Indonesian military-to-military relationship 
continues to improve after the end of years of restrictions. I believe 
the 2005 decision to waive congressional restrictions on bilateral 
military cooperation and the July 2010 decision by Secretary Gates to 
begin limited engagement with Kopassus have enhanced our ability to 
support Indonesia's efforts to consolidate its democratic 
transformation and to support its efforts to reform and professionalize 
the Indonesian Armed Forces (TNI).
    Question. What is your understanding of the extent to which the 
Indonesian Government is cooperating with the United States in the war 
on terrorism?
    Answer. If confirmed, I would consult with the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict on this 
question. Based on my current understanding, I believe that the 
Government of Indonesia has cooperated closely and effectively with the 
United States and our allies in combating global terrorist networks in 
the region, particularly against Jema'a Islamiya.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contacts. I believe we want Indonesia and the TNI to consider 
the United States as a strong and credible partner, particularly where 
our values and interests coincide in the critical areas of 
democratization and reform, bilateral and regional security 
cooperation, and counterterrorism. Our measured and gradual program of 
security activities with Koppasus will continue to take into account 
the implementation of reforms within the TNI. All activities will be in 
accordance with U.S. law, which, of course, requires individual and 
unit human rights vetting as a prelude to receiving U.S. military 
training or assistance.
    Question. What is your understanding of the factors that informed 
the decision to re-engage with Kopassus members?
    Answer. My understanding is that the significant reforms across the 
TNI and the Indonesian defense ministers' commitment to protect human 
rights and advance accountability contributed to Secretary Gates' 
decision for DOD to begin a measured and gradual program of security 
cooperation activities with Kopassus.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. The Government of Indonesia continues to make progress in 
military reform. Early progress toward defense reform--separation of 
the police from the military, eliminating formal political roles for 
the TNI, increasing accountability, and human rights training--has been 
sustained. Continued progress on the divestiture of TNI businesses 
would be an unmistakable indication of Indonesia's commitment to 
reform. The 2002 Defense Law and the 2004 TNI Law codified the roles 
and responsibilities of the TNI as a mechanism to support, not replace, 
civilian government. Continued ``hard'' reforms that the United States 
should continue to support include full accountability for past human 
rights abuses, strengthening civilian control, putting the TNI fully 
``on budget,'' and continued professionalization of the TNI officer 
corps.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I would sustain efforts to encourage 
professionalism within the military in terms of both respect for human 
rights and accountability, through bilateral security discussions, 
joint training, military assistance, and military training programs. 
U.S. security assistance and security cooperation programs are the most 
effective channels to encourage professionalism in the Indonesian 
military.

                     HIGH ALTITUDE TRANSITION PLAN

    Question. DOD, under the High Altitude Transition (HAT) Plan, 
intends to retire the U-2 intelligence, surveillance, and 
reconnaissance (ISR) fleet in the middle of this decade and replace 
these aircraft with the Global Hawk RQ-4. Under the HAT Plan, the RQ-4s 
will apparently be a PACOM-wide asset, flying missions throughout the 
region, whereas the U-2s have been dedicated to supporting U.S. and 
Korean forces on the Korean peninsula. The United States and the ROK 
have been considering a ROK purchase of the Global Hawk aircraft 
through the Foreign Military Sales (FMS) process. If this FMS case were 
to proceed, much but not all of the impact of U-2 retirement would be 
mitigated, but either way the level of airborne ISR available on a day-
to-day basis in Korea may well be diminished.
    In your assessment, is the possibility that the level of airborne 
ISR available on a day-to-day basis will be diminished a concern, or 
are there other means to compensate for the retirement of the U-2?
    Answer. Allied ISR capabilities on the Korean Peninsula and in the 
region contribute significantly to our ability to defend the United 
States and our allies and partners, promote regional stability, and 
protect our collective interests. I have not had a chance to review the 
U-2 retirement issue in detail, but if confirmed, I will be an advocate 
for a strong and well-equipped U.S. forward presence on the Korean 
peninsula.
    Question. If the sale does not go through, how would you propose 
that the United States sustain required levels of airborne ISR support 
on the Korean peninsula?
    Answer. I have not had an opportunity to examine this issue in 
detail. If confirmed, I will research this issue and work closely with 
my colleagues in DOD and other relevant departments and agencies to 
ensure that we do not experience a reduction in ISR capabilities that 
would diminish our ability to execute our required missions.

                        COUNTERPIRACY OPERATIONS

    Question. Since January 2009, the U.S. Navy has been patrolling the 
waters of the Gulf of Aden and off the coast of Somalia as part of the 
international coalition engaged in counterpiracy operations. Prior to 
the engagement off the coast of Somalia, DOD worked with many of our 
Asian partners to address the threat of piracy in Southeast Asia, such 
as in the Strait of Malacca.
    What is your understanding of the current threat of piracy in the 
Asia-Pacific region?
    Answer. Piracy in the Asia-Pacific region has declined in recent 
years, largely due to committed efforts of regional littoral states. 
Indonesia, Singapore, and Malaysia, for example, took the initiative--
with U.S. support to provide increased security to key sea lines, in 
particular, the Strait of Malacca. Although piracy has declined in the 
Strait of Malacca, there are instances of piracy in the southern parts 
of the South China Sea, and we should be mindful that, as long as 
piracy remains a lucrative business model, it will be attractive not 
only in the Asia-Pacific region, but around the world.
    Question. What role, if any, should DOD play in countering any 
piracy threat in the Asia-Pacific region?
    Answer. The situation off the coast of Somalia and in the western 
Indian Ocean demonstrates that the military cannot solve the overall 
problem of piracy. Military force addresses the symptoms, not the 
causes, of piracy. In the Asia-Pacific region, DOD should provide 
capacity building and training support to enhance the ability of 
regional states to counter piracy when such support aligns with broader 
U.S. objectives and interests in the region and complements the 
political commitment of regional countries, as was the case with 
Indonesia, Singapore, and Malaysia regarding piracy in the Strait of 
Malacca.

                INTERNATIONAL PEACEKEEPING CONTRIBUTIONS

    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
more military personnel as both staff officers and military observers 
in support of U.N. peacekeeping operations?
    What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    If confirmed, would you support identifying methods through which 
the DOD personnel system could be more responsive to requests for 
personnel support from multilateral institutions like the United 
Nations?
    Answer. The United States has a stake in the success of U.N. 
peacekeeping operations. I believe that, where practicable, the United 
States should continue to provide military personnel for U.N. 
peacekeeping operations, especially for key staff positions that can 
help shape the direction and success of the mission. However, as with 
any investment, there are associated costs.
    If confirmed, I will work to ensure that DOD evaluates requests for 
personnel support from multilateral institutions, weighing the 
potential positive impact of U.S. participation in the mission against 
other military commitments and the proposed cost of U.S. involvement.

                          COMBATTING TERRORISM

    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked groups 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    If confirmed, what would be your role within DOD with respect to 
counterterrorism?
    Answer. The National Strategy for Counterterrorism maintains focus 
on pressuring al Qaeda's core while emphasizing the need to build 
foreign partnerships and capacity and to strengthen our resilience. If 
confirmed, I understand that my role in this effort will be to work 
closely with the nations in this strategically important region to 
build enduring partnerships and capabilities, degrade the links between 
al Qaeda and its affiliates and adherents, and eliminate terrorist safe 
havens. At the same time, I would work closely with colleagues in the 
U.S. interagency, as well as with our allies and partners, in order to 
support the counterterrorism strategy's objective of applying a whole-
of-government approach to defeating al Qaeda.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in the Asia-Pacific region?
    Answer. There have been important recent successes in the fight 
against al Qaeda, most notably the successful operation against Osama 
bin Laden. Despite these important successes, from its base of 
operations in Pakistan's Federally Administered Tribal Areas, al Qaeda 
continues to pose a persistent and evolving threat to the United 
States. Despite significant losses to its command structure, al Qaeda 
is adapting, and uses its safe haven to continue attack-planning as 
well as produce propaganda, communicate guidance to affiliates and 
operational cells in the region and abroad, solicit logistical and 
financial support, and provide training and indoctrination to new 
operatives.
    Question. Is there a nexus between terrorist groups and criminal 
networks in the Asia-Pacific region?
    Answer. Transnational criminal activity, including narcotics 
trafficking and arms smuggling, provides pathways and opportunities for 
terrorist organizations to move people and resources across the region. 
Kidnapping for ransom and piracy have the potential to generate 
millions of dollars, some of which may end up in the hands of 
terrorists to fund operations, training, and recruitment.
    Question. In Southeast Asia, most notably in the Philippines and 
Indonesia, U.S. engagement with partner nations has helped combat 
violent extremist ideology and activities. The integration of 
operations by host nation security forces with U.S. capacity building, 
development, and information support operations has dramatically 
reduced the ability of violent extremist organizations to operate.
    What more can the United States do in Southeast Asia to help combat 
the threat of terrorism perpetrated by violent extremists?
    Answer. The new National Strategy for Counterterrorism recognizes 
the success our partners have had in maintaining pressure on the 
region's most lethal terrorist organizations, while noting that the 
region remains potentially fertile ground for local terrorists who 
share al Qaeda's ideology and motivations. Going forward, the United 
States should continue to assist in building the security capacity of 
governments in the region that consistently demonstrate their 
commitment against al Qaeda and its affiliates and adherents.
    Question. Which Southeast Asian countries are most important in the 
fight against terrorism in that region and what should the United 
States do to enhance relations with those countries?
    Answer. Because of the prominent interagency aspects of building 
partner-nation counterterrorism capacity, especially on the law 
enforcement side, DOD will often serve in a supporting role. As 
reflected in the National Strategy for Counterterrorism, the United 
States has developed a robust network of bilateral counterterrorism 
relationships with key countries in Southeast Asia, including 
Indonesia, the Philippines, Singapore, Thailand, and Australia. For 
DOD, Indonesia and the Philippines should be the top priorities for 
counterterrorism capacity-building assistance in Southeast Asia, 
notably through section 1206 programs. Section 1206 (of the National 
Defense Authorization Act for Fiscal Year 2006, as amended) remains one 
of DOD's most effective authorities for building partner capacity to 
combat terrorism. DOD enjoys good relations with Indonesia and the 
Philippines and, in close consultation with Congress and the Department 
of State, should sustain and enhance these relationships through 
continued policy dialogues, security cooperation, and security 
assistance programs.

                        SECTION 1208 OPERATIONS

    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. I understand that section 1208 authority is a key tool that 
combatant commanders have repeatedly confirmed as essential to 
combating terrorism in their areas of responsibility. It enables the 
special operations forces under their control to leverage willing 
partners that possess access to areas, people, and information that are 
denied to our forces, but critical to tactical and strategic success. 
The authority has allowed DOD to respond quickly to emergent global 
challenges. Section 1208 requires appropriate civilian oversight, 
including Secretary of Defense approval and congressional notification.

           DEPARTMENT OF DEFENSE COUNTERNARCOTICS ACTIVITIES

    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support CN operations, build the 
capacity of certain foreign governments in Asia and around the globe, 
and analyze intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. Drug trafficking and associated organized crime are 
multidimensional threats to the United States. In addition to the 
impact on our Nation's public health and economy, drug trafficking and 
other forms of transnational organized crime provide a funding source 
for terrorists and insurgents, undermine legitimate government 
institutions, and contribute to international instability.
    I have not had an opportunity to assess the DOD CN program. If 
confirmed, I look forward to working with Congress, and counterparts at 
DOD, the Department of State, and the National Security Staff to ensure 
that these programs achieve measureable results in the Asia-Pacific 
region and that those results are clearly aligned with the goals of the 
National Security Strategy and the National Drug Control Strategy.
    Question. What is your understanding of the illegal narcotics 
industry in Asia?
    Answer. South and Southeast Asia have become increasingly more 
attractive as bases for drug trafficking organizations' production and 
smuggling operations. Several Asian and Pacific nations have 
experienced a significant increase in the production, transshipment, 
trafficking, and consumption of narcotics in recent years. 
Methamphetamine produced using diverted precursor chemicals, heroin 
transshipment through Asia, poppy cultivation, and potential narco-
terrorist funding remain the primary drug threats to the United States 
from the Asia-Pacific region.
    Question. What role, if any, should DOD play in countering--either 
directly or by, through, and with our Asian partners--the illegal 
narcotics industry in Asia?
    Answer. I believe that the current DOD role is appropriate. DOD 
serves as the single lead agency for the detection and monitoring of 
aerial and maritime trafficking of illicit drugs flowing toward the 
United States. In addition, DOD plays a critical role in supporting 
U.S. and foreign law enforcement agencies responsible for counterdrug 
and drug-related activities, primarily through information-sharing and 
building partner-nation security capacity. In cooperation with U.S. 
interagency and foreign partners, DOD conducts activities to detect, 
disrupt, and dismantle drug-related transnational threats in Asia and 
the Pacific.
    Question. On an annual basis, DOD spends approximately $500 million 
building the capacity of the Afghanistan Government to counter the 
illegal narcotics trade. Despite this sizable annual investment, 
Afghanistan remains the ``wellspring of the global opium trade, 
accounting for 93 percent of all opium poppy cultivation,'' according 
to the United Nations Office of Drugs and Crime (UNODC). UNODC has also 
found that about 80 percent of the drugs derived from Afghan opium 
poppies are smuggled out by transnational organized criminal groups 
through the Islamic Republic of Iran and Pakistan; the rest flow 
through Central Asia.
    What is your assessment of DOD's CN program in Afghanistan?
    Answer. I understand that DOD supports CN efforts in Afghanistan by 
building Afghan capacity and working with U.S. law enforcement agencies 
such as DEA, CBP, FBI, and ICE to interdict narcotics trafficking. 
Although DOD supports Afghan eradication efforts, the Department of 
State has the lead for that effort. This year the interdiction of 
opiates and precursor chemicals in Afghanistan has increased. Afghan CN 
police-vetted units, mentored by DEA, are now capable of conducting 
drug interdiction operations and have been actively involved in 
combined operations with DEA and military forces. DOD has also been 
building the capacity of the Afghan border management efforts to stop 
drugs from leaving Afghanistan and precursor chemicals from entering 
the country.
    Question. Do you think the DOD CN program in Afghanistan has been 
successful to date?
    Answer. Yes. I believe that considerable improvements have been 
made this year with military and law enforcement coordination.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea? If so, why?
    Answer. I support U.S. accession to the Law of the Sea Convention. 
It is in the enduring interests of the United States to be at the 
forefront of promoting the rule of law, including in the world's 
oceans. U.S. accession to the Convention would send an additional, 
clear signal to the world that we remain committed to advancing the 
rule of law at sea. Additionally, under the Convention, the United 
States would have the firmest possible legal foundation for the 
navigational rights and freedoms needed to project power, reassure 
allies and partners, deter adversaries, respond to crises, sustain 
deployed combat forces, and secure sea and air lines of communication 
that underpin international trade and our own economic prosperity.
    Question. Would U.S. accession to the United Nations Law of the Sea 
Convention benefit the U.S. military's mission in the Asia-Pacific 
region? If so, how?
    Answer. U.S. accession to the Law of the Sea Convention would 
benefit the U.S. military's mission in the Asia-Pacific region by 
enabling the United States to reinforce and assert the Convention's 
freedom of navigation and overflight rights, including transit passage 
in strategic straits. In addition, becoming a party to the Convention 
would support combined operations with regional partners and support 
the Proliferation Security Initiative; establish undisputed title to 
our extended continental shelf areas; strengthen our position in 
bilateral discussions with the People's Republic of China; and bolster 
our leadership in future developments in the law of the sea. Accession 
would also improve the United States' position and add to our 
credibility in a large number of Asia-focused multilateral venues where 
Law of the Sea matters are discussed.

                       POW/MIA ACCOUNTING EFFORTS

    Question. The Joint POW/MIA Accounting Command is critical to the 
recovery and identification of remains of missing military members. 
Recovery of remains of U.S. servicemembers from World War II, the 
Korean War, and the Vietnam war continues to be a high priority. On 
October 20, 2011, DOD announced an agreement with North Korea that will 
allow U.S. personnel to return to North Korea to resume recovery of 
remains of U.S. servicemembers missing from the Korean War. Recovery 
operations in North Korea were suspended in 2005.
    What is your understanding of this recent agreement to resume 
recovery operations in North Korea?
    Answer. It is my understanding that Deputy Assistant Secretary of 
Defense Robert Newberry, Director of the POW/Missing Personnel Office 
(DPMO), led an interagency team to conduct negotiations with the North 
Korean military last month, which reached a successful arrangement to 
resume recovery operations. The operations in North Korea are expected 
to begin next year and will mark the first operations since 2005 when 
the United States halted missions because of increased tensions on the 
Korean Peninsula. Prior to that time, U.S. specialists from the Joint 
POW/MIA Accounting Command conducted recovery operations in that 
country for 10 years, recovering remains believed to be more than 225 
servicemen since 1996.
    It is my understanding that the arrangement calls for U.S. teams to 
work in two areas in North Korea--Unsan County, about 60 miles north of 
Pyongyang, and near the Chosin/Jangjin Reservoir--where more than 2,000 
soldiers and marines are believed to be missing.
    Question. How might the resumption of recovery efforts in North 
Korea impact the future of the Six-Party Talks or the stability on the 
Korean Peninsula?
    Answer. Remains recovery operations are a humanitarian issue 
between the United States and North Korea and are divorced from other 
political issues. I would have to defer to the Department of State for 
remarks on the future of the Six-Party Talks. The ROK-U.S. alliance and 
the U.S. commitment to the defense of South Korea remains a cornerstone 
not only of stability on the Korean Peninsula, but throughout Northeast 
Asia more broadly.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the U.S. Pacific Command area of 
responsibility?
    Answer. If confirmed, I will work closely with the Deputy Assistant 
Secretary for DPMO, Pacific Command, the State Department, and all 
other organizations involved to provide advice and support whenever 
necessary.

                        FOREIGN LANGUAGE POLICY

    Question. In 2005, DOD approved the Defense Language Transformation 
Roadmap to improve the Department's foreign language capability and 
regional area expertise. Since then, the Department has been working 
toward implementing that roadmap.
    How many Mandarin and/or Cantonese speakers does DOD have in 
intelligence analyst positions?
    Is this number sufficient to ensure good intelligence assessments 
for use by the Office of Asian and Pacific Security Affairs?
    In your view, how should the United States expand the foreign 
language skills of civilian and military personnel in order to improve 
the quality of intelligence input to, and policy output by, the Office 
of Asian and Pacific Security Affairs?
    Answer. I have not had an opportunity to examine this issue in 
detail. If confirmed, I will research this issue and will look forward 
to working with Congress to ensure DOD builds sufficient foreign 
language capability and regional area expertise.

                         COUNTER-THREAT FINANCE

    Question. A number of officials in DOD and the Intelligence 
Community have called for investing significantly more resources in 
identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking.
    What are your views on the role of DOD in counter-threat finance 
activities?
    Answer. Terrorists, drug traffickers, and other adversaries rely 
heavily on legal and illegal funding sources to support their 
activities, which routinely work against U.S. interests. It is critical 
to engage all U.S. Government tools to track and halt the flow of money 
associated with these organizations. It is my understanding that DOD 
has capability to identify and disrupt our adversaries' finances while 
working with its interagency counterparts in both Iraq and Afghanistan. 
DOD is not the U.S. Government lead agency in counter-threat finance, 
but I believe it plays a supportive role by working with other 
departments and agencies, and with partner nations, to fight our 
adversaries' abilities to use global financial networks.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter-
threat finance activities?
    Answer. DOD should increase its cooperation with U.S. law 
enforcement agencies, the Treasury Department, the Intelligence 
Community, and the Department of State to target and degrade 
adversaries' funding sources where possible. DOD counter-threat finance 
policy provides that DOD should work with other U.S. Government 
departments and agencies and with partner nations to deny or disrupt, 
or defeat and degrade adversaries' abilities to use global licit and 
illicit financial networks to affect U.S. interests negatively. Greater 
cooperation will yield greater ability to target adversaries' 
vulnerabilities using a whole-of-government approach including 
interdiction, sanctions, and other law enforcement actions.
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people.
    Do you think expanding counter-threat finance activities in the 
Asia-Pacific region would be beneficial? If so, what role--if any--
should DOD play in those activities?
    Answer. Several dangerous terrorist organizations operate in the 
Asia-Pacific region. Not only do they seek to target the United States, 
but they work to destabilize the region. Expanding counter-threat 
finance activities in this part of the world would be a powerful way to 
target the finances of these organizations, hindering their ability to 
purchase weapons, pay salaries, and conduct attacks. Conducting 
counter-threat finance activities is most successful through a whole-
of-government approach. I understand that PACOM and JIATF-West have 
already undertaken counter-threat finance efforts. If confirmed, I 
would advocate that DOD continue to work in collaboration with 
interagency partners and provide analytical capabilities, technology, 
strategic and operations planning, and personnel to attack the revenue 
used by these terrorist organizations.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Asian and Pacific Security Affairs?
    Answer. Yes.
    Do you agree to ensure that testimony, briefings and other 
communications of information are provided to this committee and its 
staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jim Webb

                        U.S. BASES IN EAST ASIA

    1. Senator Webb. Mr. Lippert, please describe the leadership 
approach you would take, if confirmed, to resolve the present 
challenges regarding the realignment of U.S. bases in East Asia, 
including Korea, Japan, and Guam. This should include which offices and 
leaders you believe should be consulted, both in the United States and 
abroad.
    Mr. Lippert. If confirmed, I will take an active, intense, and 
inclusive leadership approach to resolving ongoing realignment 
initiatives in the Asia-Pacific region, ensuring that the United States 
remains a Pacific power with a sustainable forward military presence in 
the region.
    I will be sure to give priority to these issues commensurate with 
the importance that our allies place upon them. For example, basing 
issues in Japan are among the most important bilateral issues for this 
key treaty ally, and I believe they should be treated as such. If 
confirmed, I would request to make my first overseas trip centered 
around this set of issues.
    If confirmed, I will be sure to keep an open mind and consult 
thoroughly with key stakeholders on these issues. It is critical to 
hear the views of U.S. Military Services, relevant components of DOD 
and the rest of the interagency, concerned congressional offices with 
long track records on this issue, and the elected leadership in Guam. 
As mentioned above, it is also important to gather the views of foreign 
leadership--which includes the national-level (to include 
parliamentarians) and local-level officials in these countries. The 
views of groups outside the government such as NGOs and think-tanks 
should also be taken into consideration.
    I recognize the limits of the position of Assistant Secretary of 
Defense on this issue, but I believe that, if confirmed, my background 
in the executive branch and on Capitol Hill makes me well-positioned to 
play an important role as a conduit between different elements of the 
U.S. Government and foreign governments on this complex and critical 
set of issues.

    2. Senator Webb. Mr. Lippert, please provide your views on the 
observations contained on these realignment matters contained in the 
May 6, 2011, letter from Chairman Levin and Senator Webb to then 
Secretary of Defense Robert M. Gates.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Lippert. It is my belief that this is a thoughtful and an 
insightful letter written by Members of the Senate with decades of 
defense and Asian policy experience. After reading the letter, talking 
with you personally, and consulting with others, I have a clear 
understanding that there are concerns regarding the feasibility of 
certain planned realignments and the complexities surrounding these 
issues--especially cost and political issues. I share your stated goal 
of a ``continuous and vigorous U.S. presence in the region'' and the 
importance you place upon the relationship with our allies in the 
region.
    I understand that senior Department of Defense (DOD) officials have 
been in contact with you to follow-up on this and other letters that 
you have written on the subject. If confirmed, I will endeavor to get 
up-to-speed on the latest developments, conduct a rigorous round of 
consultations, and engage with you further on these issues.
    Like you, I am committed to working with the interagency, Congress, 
our allies, and other stakeholders to effectively address operational, 
political, and fiscal realities while enhancing our strategic interests 
in East Asia.

    3. Senator Webb. Mr. Lippert, please provide your views on the 
questions raised in the October 21, 2011, letter from Chairman Levin 
and Senator McCain to Secretary Panetta, and the October 19, 2011, 
letter from Senator Webb to Secretary Panetta.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Lippert. My answer to this question does not vary significantly 
from question #2, as I believe the October 21 and October 19 letters 
can and should be read as specific proposals that stem from the well-
articulated views in the May 6 letter.
    I certainly agree with your comments concerning the importance of 
the security alliance with Japan and the need to resolve the basing 
issues in that country. Again, after reviewing this correspondence, 
speaking with you personally, and consulting with others, I have a 
clear understanding that there are concerns regarding the feasibility 
of certain planned realignments and the complexities surrounding these 
issues--especially cost and political issues.
    As outlined in question #2, if confirmed, I look forward to 
engaging with you as a key partner in working to try to resolve these 
difficult, complex--yet critical--issues.

    4. Senator Webb. Mr. Lippert, please provide your views on the 
recent statement in the court papers filed by the Department of 
Justice, as reported in the press, that it will take the Navy at least 
2 more years to complete a supplemental environmental study of certain 
training requirements associated with the military buildup on Guam.
    Mr. Lippert. I am aware that the Navy is currently responding to 
this lawsuit, but do not know the specific details at this time. If 
confirmed, I will be sure to work closely with my counterparts to 
resolve this issue in an expeditious manner.

    5. Senator Webb. Mr. Lippert, please provide your views on 
alternate scenarios related to the relocation of Marine Corps Air 
Station Futenma including the possibility of joint-use runways in Naha, 
Okinawa.
    Mr. Lippert. I understand that there are proposals outside of the 
administration to examine the feasibility of moving Marine Corps assets 
at Futenma to Kadena Air Force Base, while dispersing a percentage of 
Air Force assets now at Kadena into other areas of the Pacific. This 
would be part of a broader plan that would revise the current Marine 
Corps implementation plan for Guam.
    I have heard only the broad contours of proposals, also coming from 
outside the administration, concerning development of the international 
airport at Naha as a joint-use facility that could be utilized by U.S. 
forces in contingency situations. My understanding is that Naha has a 
single runway, currently shared with the Japan Air Self Defense Force.
    If confirmed, I would need to consult thoroughly with key 
stakeholders and experts on these issues before commenting further.

    6. Senator Webb. Mr. Lippert, please provide your views on the 
impact on these East Asia realignments, if any, of the recent decision 
to utilize certain military facilities in Darwin, Australia, for U.S. 
Marine Corps training and other activities.
    Mr. Lippert. It is my understanding that the recent announcement 
regarding enhanced Marine Corps rotational training in Australia is not 
linked to our realignment agreement with Japan. The U.S. marines 
deployed to Darwin will be globally sourced.
                                 ______
                                 
              Question Submitted by Senator Scott P. Brown

                             CHINESE THREAT

    7. Senator Brown. Mr. Lippert, last year China asserted itself as 
the second largest economy in world. Along with its growing industrial 
prowess, China continues to grow and modernize its military. It has 
both increased its conventional forces, with programs like the J-20 5th 
generation fighter, and its diplomatic and humanitarian efforts to 
increase its access to raw materials and overseas markets. Furthermore, 
China has conducted pervasive collection efforts on the United States 
including private sector, dual-use, and military industries and 
technologies. The growth of China's military and its cyber capabilities 
are of great concern to me. How do you perceive China's threat to the 
United States and its allies and how is the threat being mitigated?
    Mr. Lippert. I have a clear-eyed view concerning the U.S. 
relationship with China. In some aspects it is cooperative; in others 
aspects it is competitive. As President Obama has stated, ``the [U.S.-
China] relationship has not been without disagreement and difficulty. 
But the notion that we must be adversaries is not predestined.'' China 
is rapidly modernizing its military in the information age. With a 
focused set of missions and ready access to advanced technology in the 
global marketplace, China is accelerating the pace of its military 
modernization. If unanswered by an effective strategy, this could lead 
to a gradual erosion of our relative advantage and influence. I believe 
in a strategy that engages China; helps integrate China into 
international institutions; and balances China with our capabilities, 
alliances, and partnerships. Given the uncertainty around the evolution 
of China, I believe it is vital that we maintain a strong and effective 
force posture in the region that is geographically distributed, 
operationally resilient, and politically sustainable.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

             CHINA AND TAIWAN CROSS-STRAIT SECURITY BALANCE

    8. Senator Cornyn. Mr. Lippert, in your answers to the advance 
policy questions, you stated that ``China's military buildup continues 
to pose anti-access/area-denial challenges and shift the cross-strait 
balance'' (between China and Taiwan) in China's favor. You also 
acknowledged that China's ``near-term focus appears to be on preparing 
for potential contingencies involving Taiwan, and to deter or deny 
effective intervention in a cross-strait conflict.'' Many of us 
remember the Taiwan Strait crisis of 1996, when China tried to 
intimidate Taiwan on the eve of its first free presidential elections 
by conducting a series of military exercises that included the firing 
of missiles just a few miles north of Taiwan. President Clinton 
responded by ordering the largest U.S. military force since the Vietnam 
War to deploy to the region, including two carrier battle groups. Such 
a scenario may repeat itself, though this time with a much more capable 
and willful Chinese military. Would you agree that, were China to 
launch some type of military offensive against Taiwan, such a scenario 
would have the potential to draw the United States into a dangerous 
large-scale conflict in the region?
    Mr. Lippert. The Taiwan Relations Act (TRA) states: ``It is the 
policy of the United States to maintain the capacity of the United 
States to resist any resort to force or other forms of coercion that 
would jeopardize the security, or the social or economic system of the 
people on Taiwan.'' In such a scenario, the President would determine 
the appropriate response; however, this question highlights the 
importance of the U.S. relationship with Taiwan. The Obama 
administration's strong commitment to the TRA is evident in its 
actions, which include the September 21 notification to Congress of its 
intent to sell Taiwan $5.85 billion worth of new defense articles and 
services--including an upgrade package for Taiwan's 145 F-16 A/B 
fighters; spare parts for its F-16, F-5, and C-130 aircraft; and 
training for F-16 pilots at Luke Air Force Base in Arizona. This 
decision follows the January 29, 2010, decision to sell Taiwan $6.4 
billion in defensive arms, including 60 UH-60M Blackhawk helicopters, 
Patriot PAC-III firing units and missiles (3 firing units, 1 training 
unit, and 114 missiles), Harpoon missiles, 2 Osprey-class mine hunters, 
and follow-on support for command and control systems. In addition, in 
August 2011, the Obama administration submitted a $310 million direct 
commercial sales notification to Congress for the approval of export 
licenses in support of radar equipment for Taiwan Indigenous Defense 
Fighters and Hughes Air Defense Radars. These collective sales of more 
than $12.5 billion in arms to Taiwan are an important indication of 
DOD's commitment to its obligations of the TRA and to Taiwan's defense.

    9. Senator Cornyn. Mr. Lippert, do you agree that helping deter any 
cross-strait military conflict is in both our own security interests 
and the Asia/Pacific region's security interests?
    Mr. Lippert. Absolutely.

    10. Senator Cornyn. Mr. Lippert, would you also agree that the 
likelihood of Chinese aggression against Taiwan becomes more likely as 
Taiwan's ability to defend itself deteriorates further?
    Mr. Lippert. I would agree that Chinese aggression could be 
perceived, by the leadership in China, as an option in a crisis if 
Taiwan is weak, and the U.S. commitment to Taiwan waivers. This is 
precisely why I believe the administration was right to pursue 
collective sales of over $12.5 billion in arms to Taiwan, continue 
robust engagement with Taipei, and, more broadly, make a point of 
emphasis on strong and enduring U.S. presence in the Western Pacific.

                    TAIWAN'S DETERIORATING AIR FORCE

    11. Senator Cornyn. Mr. Lippert, in official estimates provided by 
DOD, they show that the People's Republic of China has 2,300 
operational combat aircraft, while the Government of Taiwan has only 
490 operational combat aircraft. In my opinion, there now exists a 
serious airpower imbalance between China and Taiwan. Do you disagree?
    Mr. Lippert. The 2009 Annual Report to Congress on Military Power 
of the People's Republic of China reported: ``In the 2002 report, DOD 
assessed that Taiwan `has enjoyed dominance of the airspace over the 
Taiwan Strait for many years. This conclusion no longer holds true.' '' 
China's military has improved across the board, and the threat from 
combat aircraft is just one of many threats to Taiwan and regional 
stability. Taiwan will never be able to go toe-to-toe with the PRC; 
there is no silver bullet to solve this growing problem. Taiwan must 
properly fund its military and prioritize a defense transformation that 
incorporates an asymmetric strategy that both deters PRC aggression 
and, should deterrence fail, allow Taiwan to defend the island.

    12. Senator Cornyn. Mr. Lippert, what is your assessment of the 
risk to both Taiwanese and U.S. interests as a result of this cross-
strait imbalance in air power?
    Mr. Lippert. The defense of Taiwan cannot be viewed through the 
narrow prism of airpower alone. A more holistic approach that considers 
all aspects of a joint defense of the island is vital.

    13. Senator Cornyn. Mr. Lippert, for years, DOD has documented a 
steady increase in advanced Chinese weaponry and aircraft positioned 
opposite Taiwan. It is a consensus belief among security and military 
experts that Taiwan has lost its technological edge in defense 
weaponry. What is the tipping point, in terms of Chinese force buildup, 
that would necessitate the sale of additional U.S. fighter aircraft to 
Taiwan?
    Mr. Lippert. The conference report accompanying the National 
Defense Authorization Act for Fiscal Year 2010 (House Rep. 111-288) 
requested the Secretary of Defense to provide a report on Taiwan's Air 
Defense Force. It is my understanding that a detailed classified report 
addressing these concerns was delivered to Congress in September 2011.

    14. Senator Cornyn. Mr. Lippert, do you honestly believe that the 
current Taiwan forces can successfully repel China's increasingly 
capable fighter aircraft?
    Mr. Lippert. The Annual Report to Congress on Military Power of the 
People's Republic of China 2009 reported: ``In the 2002 report, DOD 
assessed that Taiwan `has enjoyed dominance of the airspace over the 
Taiwan Strait for many years. This conclusion no longer holds true.' '' 
From what I am able to discern, China's military has improved across 
the board; the threat from combat aircraft is just one of many threats 
to Taiwan and regional stability. My general view is that Taiwan will 
have severe difficulty in matching the PRC capability for capability, 
and that there is no silver bullet for this growing problem. I am 
informed that the DOD Report to Congress on Taiwan's Air Defense Force 
may contain useful recommendations for the defense of Taiwan.
    In my view, the United States must continue its strong commitment 
to the TRA and that Taiwan must properly fund their military and 
prioritize a defense transformation that incorporates an asymmetric 
strategy that both deters PRC aggression, and should deterrence fail, 
allow Taiwan to defend the island.

    15. Senator Cornyn. Mr. Lippert, it is my understanding that DOD 
conducted its own assessments of Taiwan's defense needs from 1997 
through early 2004, producing over a dozen studies. Since that time, 
DOD has only produced the one 2010 study on Taiwan's air defense forces 
that was mandated by Congress, although reports indicate it also began 
a study on Taiwan's joint defense transformation in 2010. Do you 
believe reports, such as those produced between 1997 and 2004, are 
essential in understanding the threat posed by shifting China-Taiwan 
relations?
    Mr. Lippert. It is my understanding that the conclusions stated in 
the reports from 1997 to 2004 are no longer valid; these assessments 
could not have envisioned the rapid growth of PRC capabilities, nor 
Taiwan's failure to fund its defense adequately. However, the services 
DOD provides to Taiwan to improve its defensive capabilities have never 
been more robust. DOD has conducted numerous assessments with Taiwan, 
and is in year 4 of a 7-year assessment to assist Taiwan in developing 
an asymmetric strategy that reduces the threat from the PRC. This is 
just one of many assessments that have been conducted since 2004 to 
improve Taiwan's defense capabilities.

    16. Senator Cornyn. Mr. Lippert, if confirmed, how do you intend to 
ensure that the executive and legislative branches possess the 
necessary information to accurately evaluate Taiwan's defense needs?
    Mr. Lippert. If confirmed, I believe that frequent dialogue would 
ensure both the executive and legislative branches understand how to 
improve Taiwan's defense capabilities.

                        SALE OF F-16S TO TAIWAN

    17. Senator Cornyn. Mr. Lippert, what is your position on the 
proposed sale of 66 new F-16s C/Ds to Taiwan?
    Mr. Lippert. I believe the congressional notification of the F-16 
retrofit reflects a smart defense policy that provides real and 
immediate contributions to Taiwan's security. The retrofitted F-16 A/B 
aircraft will provide a more reliable, survivable, and capable 
aircraft--comparable to the F-16 C/D, but at a lower cost--and Taiwan 
will have a total of 145 of them.

    18. Senator Cornyn. Mr. Lippert, the F-16 production line may shut 
down before the administration authorizes additional F-16 sales to 
Taiwan. If that is allowed to happen, would you be in favor of selling 
Taiwan F-35 Joint Strike Fighters (JSF) to ensure that Taiwan can deter 
threats from China?
    Mr. Lippert. I believe we should provide Taiwan real defensive 
capabilities that will allow Taiwan's military to execute its defense 
missions effectively today and well into the future. Without the 
benefit of being in the position, I am limited on the insights I can 
provide on specific capabilities that would match the administration's 
strategic intent, though I recognize that is an evolving conversation.

    19. Senator Cornyn. Mr. Lippert, in terms of economic benefits, the 
F-16 C/D sales to Taiwan would mean at least $8 billion to a critical 
portion of our industrial base that is about to get hammered by defense 
cuts. Taiwan clearly needs these aircraft, and the United States 
clearly needs the thousands of jobs that are supported by the F-16 
production line. Do you agree that American jobs, overall economic 
impact, and the future of the defense industrial base are important 
considerations in determining whether to sell new F-16s to Taiwan?
    Mr. Lippert. I believe DOD's first priority is to ensure Taiwan 
acquires and maintains the necessary defensive equipment to deter 
aggression from the PRC.

           IMPACT OF TAIWAN POLICY ON RELATIONS IN EAST ASIA

    20. Senator Cornyn. Mr. Lippert, what message do you think the 
administration's de facto denial of Taiwan's request for new F-16 C/Ds 
has sent to other U.S. allies, both in the region and around the world?
    Mr. Lippert. The Obama administration's strong commitment to the 
TRA is evident in its actions, which include the September 21, 2011, 
notification to Congress of the intent to sell Taiwan $5.85 billion 
worth of new defense articles and services--including an upgrade 
package for Taiwan's 145 F-16 A/B fighters; spare parts for its F-16, 
F-5, and C-130 aircraft; and training for F-16 pilots at Luke Air Force 
Base in Arizona. This decision follows the January 29, 2010, decision 
to sell Taiwan $6.4 billion in defensive arms, including 60 UH-60M 
Blackhawk helicopters, Patriot PAC-III firing units and missiles (three 
firing units, one training unit, and 114 missiles), Harpoon missiles, 
two Osprey-class mine hunters, and follow-on support for command and 
control systems. In addition, in August 2011, the Obama administration 
submitted a $310 million direct commercial sales notification to 
Congress for the approval of export licenses in support of radar 
equipment for Taiwan Indigenous Defense Fighters and Hughes air defense 
radars. These collective sales of more than $12.5 billion in arms to 
Taiwan are an important indication of DOD's commitment to the 
obligations of the TRA and to Taiwan's defense. These sales are a very 
clear demonstration of U.S. commitment to Taiwan and to maintaining 
peace and stability in the Taiwan Strait.

    21. Senator Cornyn. Mr. Lippert, recently, the United States has 
engaged in military capacity building for Japan and Korea, which are 
also threatened by China's second artillery missile threat. The 
administration also recently announced the planned transfer and upgrade 
of 24 excess defense article F-16s to Indonesia, which sits on South 
China Sea. However, this same threat has been halfheartedly addressed 
by the administration, when it comes to selling Taiwan the F-16s they 
have requested. Can you explain this policy inconsistency and, if 
confirmed, will you work to rectify it?
    Mr. Lippert. In my view, the Obama administration is correct in 
pursuing collective sales of over $12.5 billion in arms to Taiwan, 
continuing robust engagement with Taipei, strongly supporting the TRA, 
and, more broadly, making a point of emphasis on a strong and enduring 
U.S. presence in the Western Pacific. If confirmed, I will look for 
ways to advance both U.S. and Taiwanese interests and mitigate risk in 
the region. My belief is that the defense of Taiwan should be a multi-
faceted approach that considers all aspects of a joint defense of the 
island versus one that relies solely on air power. It is through this 
general approach that, if confirmed, I will review intelligence 
assessments, DOD studies, and other information--in order to form 
opinions on the state of U.S. and Taiwanese interests. My understanding 
is that a useful starting point could be the classified report 
delivered to Congress in September 2011 on Taiwan's Air Defense Force, 
pursuant to the conference report accompanying the National Defense 
Authorization Act for Fiscal Year 2010 (House Rep. 111-288).

                         AIR-SEA BATTLE CONCEPT

    22. Senator Cornyn. Mr. Lippert, the Air-Sea Battle Concept has 
been described by some as a new way for the Navy and Air Force to work 
together to fight future wars against major powers. As I understand it, 
the Air-Sea Battle Concept is aimed at maintaining U.S. dominance of 
the air and sea domains and overpowering any nation-state that might 
try to defeat our military forces through the use of advanced missiles, 
stealth aircraft, and/or a blue-water naval fleet of its own. China is 
currently pursuing advanced missiles, stealth aircraft and a blue-water 
naval fleet. Does the implementation of the Air-Sea Battle Concept 
represent the U.S. policy response to a rising military threat from 
China?
    Mr. Lippert. It is my understanding that the Air-Sea Battle Concept 
is not designed with a specific country in mind. Instead, it is a much 
broader operational concept aimed at countering proliferating 
capabilities that present significant anti-access/areal denial (A2/AD) 
challenges. I believe Air-Sea Battle Concept will ultimately be about 
staying ahead of evolutionary changes in warfare that challenge U.S. 
power projection.

    23. Senator Cornyn. Mr. Lippert, why is it important that the U.S. 
military have a strategy to deal with China?
    Mr. Lippert. The U.S.-China relationship has assumed an enduring 
and global dimension and has become progressively more multi-faceted 
and complex. Moreover, given the uncertainty around the evolution of 
China, I believe it is vital that we maintain a strong and effective 
force posture in the region that is geographically distributed, 
operationally resilient, and politically sustainable. The U.S. military 
must support coordinated and deliberate whole-of-government strategic 
efforts in all regions of the world, and the necessity of doing so with 
respect to China is no different. DOD contributes to U.S. efforts to 
promote U.S. interests most effectively, identify shared interests and 
opportunities for cooperation, and address the most difficult areas of 
the U.S.-China relationship.

    24. Senator Cornyn. Mr. Lippert, in your opinion, does China pose a 
threat to the United States?
    Mr. Lippert. I have a clear-eyed view concerning the U.S. 
relationship with China. In some aspects it is cooperative; in other 
aspects it is competitive. I agree with President Obama's statement 
that, ``the [U.S.-China] relationship has not been without disagreement 
and difficulty. But the notion that we must be adversaries is not 
predestined.'' I believe in a strategy that engages China; helps 
integrate China into international institutions; and balances China 
with our capabilities, alliances, and partnerships. Given the 
uncertainty around the evolution of China, I believe it is vital that 
we maintain a strong and effective force posture in the region that is 
geographically distributed, operationally resilient, and politically 
sustainable.

                    UNITED STATES AS A PACIFIC POWER

    25. Senator Cornyn. Mr. Lippert, Secretary Panetta said during his 
recent trip to Asia that the purpose of his visit was ``to make very 
clear to this region and to our allies in the Pacific that . . . the 
Pacific will remain a key priority for the United States, that we will 
maintain our force projection in this area, that we will maintain a 
presence in this area, that we will remain a Pacific power.'' In light 
of China's aggressive military buildup, how do you believe the United 
States can best project itself as a Pacific power in the coming years?
    Mr. Lippert. As an Asia-Pacific power, I believe the United States 
must field a military presence in the Asia-Pacific region that is 
sufficient for a wide range of contingencies and activities, and that 
keeps pace with changes in the Asia-Pacific security environment, such 
as the rise of new powers, the growing influence of non-state actors, 
and the potential spread of weapons of mass destruction.
    I believe the U.S. military presence in the Asia-Pacific region 
should provide reassurance that the United States is committed to 
Asia's security. To do so, as Secretary Panetta has consistently said, 
will require that U.S. posture in the region be geographically 
distributed, operationally resilient, and politically sustainable.
    My understanding is that DOD is seeking a more enhanced U.S. force 
presence in the Southeast Asia, Oceania, and the Indian Ocean regions, 
enabled by a more geographically distributed network of access 
relationships and capabilities. This will allow the United States to 
perform a range of future missions--combating terrorism, responding to 
natural disasters, and strengthening regional stability. I believe 
consulting closely with U.S. allies and partners, and with Congress, on 
defense posture will allow the United States to respond effectively to 
the challenges confronting the Asia-Pacific region in the 21st century.

    26. Senator Cornyn. Mr. Lippert, if confirmed, how do you intend to 
support and promote this strategic objective?
    Mr. Lippert. If confirmed, I will work closely with other 
components of DOD, the rest of the U.S. Government, and Congress to 
develop and implement policies that bolster U.S. capabilities and 
presence in the Asia-Pacific region.

                        CHINA AND CYBER-WARFARE

    27. Senator Cornyn. Mr. Lippert, according to the 2011 DOD report, 
``Military and Security Developments Involving the People's Republic of 
China,'' China maintains aggressive efforts directed toward illegally 
obtaining sensitive U.S. technologies. The 2009 version of this report 
cited the conclusion of the Intelligence Community that China is the 
most aggressive of foreign intelligence organizations in attempts to 
penetrate U.S. agencies. Additionally, this year's report notes that, 
of the numerous cyber intrusions directed against the United States, 
some appear to have originated from within China. According to the 
Director of National Intelligence, James Clapper, in April 2009; ``a 
large number of routing paths to various Internet Protocol addresses 
were redirected through networks in China for 17 minutes . . . This 
diversion of data would have given the operators of the servers on 
those networks the ability to read, delete, or edit e-mail or other 
information sent along those paths. This incident affected traffic to 
and from U.S. Government and military sites, including sites for the 
Senate, the Army, the Navy, the Marine Corps, the Air Force, and the 
Office of the Secretary of Defense . . . '' In your opinion, is China 
engaging in state-sponsored cyber-attacks and cyber-theft against the 
United States?
    Mr. Lippert. It is my understanding that attribution of cyber 
intrusions is extremely difficult. According to DOD's 2011 Report to 
Congress on ``Military and Security Developments in China'', 
``developing capabilities for cyber warfare is consistent with 
authoritative People's Liberation Army (PLA) military writings. 
Although [the writings do not identify] the specific criteria for 
employing computer network attack against an adversary, [they do] 
advocate developing capabilities to compete in this medium.''
    As described in the unclassified DOD Strategy for Operating in 
Cyberspace, the theft of intellectual property may be the most 
pervasive cyber threat today. The ability to innovate and build 
intellectual capital is the foundation upon which U.S. military and 
economic strength rests. Beyond addressing the theft of intellectual 
property, I understand that DOD is working actively to defend and deter 
potential cyber attacks and to encourage responsible state behavior in 
cyberspace.

    28. Senator Cornyn. Mr. Lippert, what is your assessment of the 
threat of cyber-attacks that originate in China?
    Mr. Lippert. I believe the use of sophisticated and powerful cyber 
capabilities could be crippling, regardless of where it originates. The 
unclassified International Strategy for Cyberspace provides a clear 
statement that the United States reserves the right to use all 
necessary means--diplomatic, informational, military, and economic--to 
defend our Nation, our allies, our partners, and our interests in 
cyberspace.
    As stated in the 2011 Report to Congress on ``Military and Security 
Developments in China'', ``developing capabilities for cyber warfare is 
consistent with authoritative PLA military writings. Although [the 
writings do not identify] the specific criteria for employing computer 
network attack against an adversary, [they do] advocate developing 
capabilities to compete in this medium.''

    29. Senator Cornyn. Mr. Lippert, the 2011 DOD report also stated 
that China continues to leverage ``state-sponsored industrial/technical 
espionage to increase the levels of technologies and expertise 
available to support military research, development, and acquisition.'' 
In April 2009, computer spies successfully hacked into the JSF program 
and copied large quantities of data related to the design and 
electronics systems of the aircraft. Former U.S. officials said the 
attack appears to have originated in China. I view this as a serious 
risk to our long-term national security. Are you concerned about this?
    Mr. Lippert. Yes, I am very concerned about this issue. The loss of 
intellectual property from U.S. public and private sector networks has 
a corrosive effect on our military strength and the economic 
competitiveness upon which it depends. More immediately, the loss of 
sensitive government information poses great risks to our 
servicemembers and to DOD operations around the globe.

    30. Senator Cornyn. Mr. Lippert, do you think more needs to be done 
in this area?
    Mr. Lippert. I absolutely agree that DOD should expand and 
strengthen its efforts to protect sensitive government information from 
theft through cyber means.

    31. Senator Cornyn. Mr. Lippert, if confirmed for this position, 
how do you intend to address this problem?
    Mr. Lippert. If confirmed, I look forward to working closely with 
the Assistant Secretary of Defense for Global Strategic Affairs, the 
Military Departments, the combatant commands, and interagency and 
international partners to undertake the sustained and integrated effort 
that these challenges require. This includes continuing to improve upon 
DOD's cyberspace capabilities and training, deepening efforts with the 
U.S. public and private sector, and working closely with allies and 
international partners, and strengthen military partnerships to sustain 
a secure, open, and interoperable cyberspace.

    32. Senator Cornyn. Mr. Lippert, given DOD's report indicating that 
China continues to leverage state-sponsored industrial/technical 
espionage, and the fact that China is a suspect virtually any time a 
major cyber-attack against U.S. defense networks occurs, how should the 
United States respond to the growing threat of Chinese cyber-warfare?
    Mr. Lippert. I support the President's International Strategy for 
Cyberspace, which advocates a whole-of-government approach to ensure 
the risks associated with attacking or exploiting U.S. networks vastly 
outweigh the potential benefits. I understand that DOD works to ensure 
that the U.S. military continues to have all necessary capabilities in 
cyberspace to defend the United States and its interests, as it does in 
all domains. If confirmed, I will assist in the Department's efforts to 
improve its cyber capabilities and training, work more closely with the 
interagency and private sector to expand capacity and cooperation, and 
strengthen military partnerships to deter and dissuade malicious 
activity in cyberspace.
                                 ______
                                 
    [The nomination reference of Mark W. Lippert follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 20, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Mark William Lippert, of Ohio, to be an Assistant Secretary of 
Defense, vice Wallace C. Gregson, resigned.
                                 ______
                                 
    [The biographical sketch of Mark W. Lippert, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Mark W. Lippert
Education:
        <bullet> Stanford University

                <bullet> September 1993-June 1997
                <bullet> Bachelor of Arts Degree awarded June 1997

        <bullet> Stanford University

                <bullet> September 1996-January 1998
                <bullet> Master of Arts Degree awarded January 1998
Employment Record:
        <bullet> Naval Special Warfare Development Group

                <bullet> Intelligence Officer
                <bullet> October 2009-present (on terminal leave)

        <bullet> National Security Council

                <bullet> Deputy National Security Adviser/Chief of 
                Staff
                <bullet> January 2009-October 2009 (on military leave)

        <bullet> Obama-Biden Transition Project

                <bullet> Deputy Director for Foreign Policy
                <bullet> November 2008-January 2009

        <bullet> Obama For America

                <bullet> Senior Foreign Policy Adviser
                <bullet> August 2008-November 2008

        <bullet> SEAL Team One, Task Unit Al Asad

                <bullet> Intelligence Officer
                <bullet> June 2007-May 2008

        <bullet> Office of Senator Barack Obama

                <bullet> Foreign Policy Adviser
                <bullet> Personal Representative of the Member to the 
                Foreign Relations Committee
                <bullet> May 2005-August 2008 (on military leave June 
                2007-May 2008)

        <bullet> Office of Naval Intelligence, Reserve Unit 0499

                <bullet> Intelligence Officer
                <bullet> January 2005-present

        <bullet> Senate Committee on Appropriations, State-Foreign 
        Operations Subcommittee

                <bullet> Professional Staff Member
                <bullet> August 2000-May 2005

        <bullet> Office of Senator Tom Daschle, Democratic Policy 
        Committee

                <bullet> Policy Adviser
                <bullet> Policy Analyst
                <bullet> January 1999-August 2000

        <bullet> Office of Senator Dianne Feinstein

                <bullet> Legislative Correspondent
                <bullet> July 1998-January 1999

        <bullet> Legal Aid of Cincinnati

                <bullet> Research Assistant
                <bullet> September 1992-July 1993
Honors and Awards:
        <bullet> Presidential Unit Citation (2011)
        <bullet> Navy and Marine Corps Commendation Medal (2011)
        <bullet> Joint Service Commendation Medal (2010)
        <bullet> Afghanistan Campaign Medal (2010)
        <bullet> Global War on Terrorism Expeditionary Medal (2010)
        <bullet> Basic Parachutist Badge (2010)
        <bullet> Information Dominance Warfare Qualification (2010)
        <bullet> Navy and Marine Corps Achievement Medal (2009)
        <bullet> Expert Rifleman Medal (2009)
        <bullet> Expert Pistol Shot Medal (2009)
        <bullet> Sea Service Deployment Ribbon x3 (2009-2011)
        <bullet> Bronze Star Medal (2008)
        <bullet> Iraq Campaign Medal (2008)
        <bullet> Global War on Terrorism Medal (2008)
        <bullet> Navy and Marine Corps Overseas Service Ribbon (2008)
        <bullet> Armed Forces Reserve Medal (2008)
        <bullet> National Defense Medal (2005)
        <bullet> Term Member, Council on Foreign Relations (2004-2009)
        <bullet> Certificate of Completion, Intensive Mandarin Chinese 
        Language Studies Course, Beijing University-Stanford University 
        (1997)
        <bullet> Graduated With Distinction, Stanford University (1997)
        <bullet> Teaching Assistant (partial tuition payment), Stanford 
        University (1996)
        <bullet> Phi Beta Kappa, Stanford University (1996)
        <bullet> Selected to Intern, U.S. Department of State, Policy 
        Planning Staff (1995)
        <bullet> Letter of Commendation, Office of U.S. Attorney, 
        Southern District of Ohio (1993)
        <bullet> Dean's List, University of Chicago (1991-1992)
        <bullet> Varsity Baseball, University of Chicago (1991-1992)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mark W. 
Lippert in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mark William Lippert.

    2. Position to which nominated:
    Assistant Secretary of Defense for Asian and Pacific Security 
Affairs.

    3. Date of nomination:
    20 October 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    28 February 1973; Cincinnati, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Robin Elizabeth (Schmidek) Lippert.

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Stanford University, Sept. 1993-June 1997
    B.A., Political Science, June 1997
    Stanford University, Sept. 1996-Jan. 1998
    M.A., International Policy Studies, January 1998
    Beijing University, Exchange Program with Stanford, Summer 1997
    Additional Coursework from higher education institutions that was 
transferred to Stanford University: University of Chicago (9/91-6/92), 
University of Cincinnati (7/95-8/95), Xavier University (7/95-8/95), 
San Francisco State University (6/96-8/96)
    Mariemont High School, Mariemont, OH, June 1991

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Naval Special Warfare Development Group, Virginia Beach, VA, 
October 2009-Present (on terminal leave until end of year), 
Intelligence Officer
    National Security Council, Washington, DC, January 2009-October 
2009, Chief of Staff (currently on military leave)
    Obama-Biden Transition Project, Chicago, IL/Washington, DC, 
November 2008-January 2009, Deputy Director for Foreign Policy
    Obama for America, Chicago, IL, Senior Foreign Policy Advisor, 
August 2008-November 2008
    SEAL Team One, Coronado, CA, Intelligence Officer, June 2007-May 
2008
    Office of Senator Barack Obama, Washington, DC, U.S. Senate, 
Foreign Policy Advisor, Personal Representative of the Member to the 
Foreign Relations Committee, May 2005-August 2008 (On military leave 
from June 2007-May 2008)
    Office of Naval Intelligence, Suitland, MD, Intelligence Officer 
(Reserve Component), January 2005-Present
    Committee on Appropriations, Subcommittee on State-Foreign 
Operations, U.S. Senate, Washington, DC, Professional Staff Member, 
August 2000-May 2005

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Office of Senator Tom Daschle, Democratic Policy Committee, 
Washington, DC, Policy Advisor, Policy Analyst, January 1999-August 
2000, (Internship: January 1998-June 1998)
    Office of Senator Dianne Feinstein, Washington, DC, Legislative 
Correspondent, July 1998-January 1999
    Department of State, Office of Policy Planning, Washington, DC, 
Intern (during graduate school) September 1996-December 1996
    Office of the Mayor, City of San Jose, San Jose, CA, Intern 
(Stanford University in Government Program), June 1994-August 1994
    Commander's Advisory Group, Naval Special Warfare Development 
Group, U.S. Navy Dam Neck, VA (Note: Have been invited by the 
Commanding Officer, group has not yet been established)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Stanford Alumni Association
    Capitol Hill, Navy ``Wardroom''

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for America, Chicago, IL, Senior Foreign Policy Advisor, 
August 2008-November 2008
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Wayne Lippert for Cincinnati City Council, $1,100, 9/29/11

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
        <bullet> Presidential Unit Citation (2011)
        <bullet> Navy and Marine Corps Commendation Medal (2011)
        <bullet> Joint Service Commendation Medal (2010)
        <bullet> Afghanistan Campaign Medal (2010)
        <bullet> Global War on Terrorism Expeditionary Medal (2010)
        <bullet> Basic Parachutist Badge (2010)
        <bullet> Information Dominance Warfare Qualification (2010)
        <bullet> Navy and Marine Corps Achievement Medal (2009)
        <bullet> Expert Rifleman Medal (2009)
        <bullet> Expert Pistol Shot Medal (2009)
        <bullet> Sea Service Deployment Ribbon x3 (2009-2011)
        <bullet> Bronze Star Medal (2008)
        <bullet> Iraq Campaign Medal (2008)
        <bullet> Global War on Terrorism Medal (2008)
        <bullet> Navy and Marine Corps Overseas Service Ribbon (2008)
        <bullet> Armed Forces Reserve Medal (2008)
        <bullet> National Defense Medal (2005)
        <bullet> Term Member, Council on Foreign Relations (2004-2009)
        <bullet> Certificate of Completion, Intensive Mandarin Chinese 
        Language Studies Course, Beijing University-Stanford University 
        (1997)
        <bullet> Graduated With Distinction, Stanford University (1997)
        <bullet> Teaching Assistant (partial tuition payment), Stanford 
        University (1996)
        <bullet> Phi Beta Kappa, Stanford University (1996)
        <bullet> Selected to Intern, U.S. Department of State, Policy 
        Planning Staff (1995)
        <bullet> Letter of Commendation, Office of U.S. Attorney, 
        Southern District of Ohio (1993)
        <bullet> Dean's List, University of Chicago (1991-1992)
        <bullet> Varsity Baseball, University of Chicago (1991-1992)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Mark W. Lippert.
    This 16th day of November, 2011.

    [The nomination of Mark W. Lippert was reported to the 
Senate by Chairman Levin on February 17, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 26, 2012.]
                              ----------                              

    [Prepared questions submitted to Brad R. Carson by Chairman 
Levin prior to the hearing with answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. This milestone legislation is now more than 25-years-old 
and has served our Nation well. Although I believe that the framework 
established by Goldwater-Nichols has significantly improved inter-
Service and joint relationships and promoted the effective execution of 
responsibilities, the Department, working with Congress, should 
continually assess the law in light of improving capabilities, evolving 
threats, and changing organizational dynamics. Although I am currently 
unaware of any reason to amend Goldwater-Nichols, if confirmed, I hope 
to have an opportunity to assess whether the challenges posed by 
today's security environment require amendments to the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I have no specific proposals to modify 
Goldwater-Nichols. As with any legislation of this magnitude, however, 
I believe it may be appropriate to review past experience with the 
legislation with a view to identifying any areas in which it can be 
improved upon, and then to consider with Congress whether the act 
should be revised.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. Title 10, U.S.C., section 3019, provides that the General 
Counsel of the Army shall perform such functions as the Secretary of 
the Army may prescribe. The Secretary has prescribed the General 
Counsel's duties through general orders, regulations, and memoranda. 
The General Counsel provides legal advice to the Secretary of the Army, 
the Under Secretary, the Assistant Secretaries, and other offices 
within the Army Secretariat. As the chief legal officer of the 
Department of the Army, the General Counsel determines the controlling 
legal positions of the Department of the Army. The General Counsel's 
responsibilities extend to any matter of law and to other matters as 
directed by the Secretary. I understand that examples of specific 
responsibilities currently assigned to the General Counsel include 
providing professional guidance to the Army's legal community, 
overseeing matters in which the Army is involved in litigation, serving 
as the Designated Agency Ethics Official, exercising the Secretary's 
oversight of intelligence and other sensitive activities and 
investigations, providing legal advice to the Army Acquisition 
Executive, and taking final action on certain claims filed against the 
Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The duties and responsibilities of the General Counsel of 
the Department of the Army are broad and far-reaching. Consequently, 
the General Counsel must possess sound legal and analytical skills, 
together with absolute integrity and mature judgment. As the diversity 
and complexity of the legal and policy issues confronting the Army are 
such that no one lawyer can have in-depth experience in all of them, 
the General Counsel must have strong interpersonal and leadership 
abilities and a willingness to work collaboratively with experts in 
numerous areas. I believe that, if confirmed, my background and diverse 
legal and executive experiences have well prepared me to execute the 
duties of the General Counsel of the Department of the Army. A summary 
of my experience follows:
    Currently, I am a professor in the College of Business and College 
of Law at the University of Tulsa. I attended Baylor University, where 
I graduated with highest honors, was inducted into Phi Beta Kappa, and 
selected as a Rhodes Scholar. Studying at Trinity College, Oxford, I 
earned a B.A./M.A. in Politics, Philosophy, and Economics. I graduated 
from the University of Oklahoma College of Law, where I served on the 
law review, received the award for Outstanding Note in the Oklahoma Law 
Review, and was recognized as the Outstanding Graduate. In 1994, I 
entered the practice of law at Crowe & Dunlevy, the largest firm in the 
State of Oklahoma. During my early years of legal work, I focused on 
commercial litigation, with a particular emphasis on antitrust law. 
From 1997 through 1998, I was a White House Fellow, serving in the 
Department of Defense (DOD). After completing the White House 
Fellowship, I returned to practicing commercial litigation at Crowe & 
Dunlevy. In 2000, I was elected to represent the 2nd District of 
Oklahoma in the U.S. House of Representatives. In 2005, after leaving 
politics, I was a fellow at the Kennedy School of Government at Harvard 
University. From 2005 to 2008, I was a director and then Chief 
Executive Officer of CNB, LLC, where I oversaw all legal matters and a 
large team of in-house lawyers. From 2009 to 2010, as an officer in the 
U.S. Navy, I served in Iraq on active military duty with the 84th 
Explosive Ordnance Battalion of the U.S. Army, where I was officer-in-
charge of Weapons Intelligence Teams in Multi-National Division-South. 
I was awarded the Bronze Star and Army Achievement Medal.
    I believe that my extensive experience in law, business, education, 
politics, and the military have all helped prepare me for the 
extraordinary challenge of serving as General Counsel of the Department 
of the Army. I recognize the legal and policy issues facing the 
Department of the Army in this time of war and transformation. I have 
extensive experience in compliance, human resources management, 
corporate governance and strategy, and understanding legal and 
enterprise risk. If confirmed, I commit to using my skills and 
experience to diligently and effectively perform the duties of General 
Counsel.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. I am confident that I have the requisite legal experience, 
analytic abilities, and leadership skills to serve as the General 
Counsel of the Department of the Army. If confirmed, I will work to 
broaden my expertise and further my understanding and knowledge of the 
major legal challenges facing the Army, including its personnel and its 
component organizations. Additionally, if confirmed, I will undertake 
to establish and maintain collaborative and productive professional 
working relationships with the career civil servants in the Office of 
the General Counsel as well as with The Judge Advocate General of the 
Army and with other offices dealing with matters of mutual interest. If 
confirmed, I would expect to benefit from their knowledge as we work 
collaboratively to provide the best possible legal services to all 
members of the Department of the Army.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. Although the Secretary of the Army has not discussed with 
me the duties and functions he will expect of me, I anticipate that he 
will rely on me to provide accurate and timely legal advice to help 
ensure that the Army complies with both the letter and spirit of the 
law. I would expect the current enumeration of General Counsel 
responsibilities set forth in the General Order prescribing the duties 
of each principal official of Headquarters, Department of the Army, 
generally to remain in effect. Apart from such formally prescribed 
duties, I believe the Secretary of the Army would expect me to continue 
a collegial and professional relationship with the General Counsels of 
DOD, the other Military Departments, and the defense agencies and the 
legal staffs of other Federal agencies. I anticipate that the Secretary 
of the Army will expect me to continue the extraordinarily effective 
and professional working relationship that exists between the Office of 
the General Counsel and The Judge Advocate General and his staff. 
Finally, I anticipate that the Secretary of the Army will expect me to 
manage the General Counsel's office efficiently and effectively, and to 
ensure that the Army legal community is adequately resourced to perform 
its important mission.
    Question. In carrying out your duties, how will you work with the 
General Counsel of DOD?
    Answer. The General Counsel of DOD is the chief legal officer and 
final legal authority for DOD. As I understand it, the General Counsel 
of DOD, Mr. Jeh Johnson, has made clear in his testimony before this 
committee and in his actions in the Department that he intends to work 
closely with the Service General Counsels. If confirmed, I anticipate 
having a close and professional relationship with Mr. Johnson, 
characterized by continuing consultation, communication, and 
cooperation on matters of mutual interest, in furtherance of the best 
interests of DOD.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. In my opinion, a major challenge will be consistently to 
provide responsive, accurate legal advice on the broad array of complex 
issues that will arise in conjunction with the Army's execution of its 
mission to provide trained and ready forces to combatant commanders 
while shaping its structure and operations in an environment of 
declining resources. Although it is difficult to anticipate specific 
legal questions, I expect to confront issues relating to operational 
matters, acquisition reform, privatization initiatives, military and 
civilian personnel policies, and compliance with environmental laws. I 
am not aware of any problems in the current delivery of legal services. 
However, if confirmed, I will work hard to ensure that the Army legal 
community is adequately staffed and resourced to provide the 
responsive, accurate, and timely legal advice necessary to ensure 
success in all of the Army's endeavors.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will prioritize legal issues in the manner 
that best serves the Department of the Army. I will also ensure that 
the talented and dedicated lawyers comprising the Army legal community 
continue to provide timely, value-added legal and policy advice of the 
highest quality, executing the Department's recurring legal 
responsibilities and anticipating and responding to the numerous issues 
that the Army confronts every day. I will endeavor to keep Army lawyers 
involved at all stages of the decisionmaking process, because I believe 
that preventive law, practiced early in the formulation of departmental 
policies, will undoubtedly facilitate the Department's adaptation to 
the changing operational environment. Additionally, if confirmed, I 
will work diligently to resource adequately and staff expertly the Army 
legal community, in order to guarantee decisionmakers at all levels 
access to the best possible legal advice.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I will focus foremost on the issues that 
directly impact soldiers, their families, readiness, and the support of 
military operations. I anticipate that the other legal issues of 
highest priority will arise from the Army's execution of its mission to 
provide trained and ready forces to combatant commanders while shaping 
its structure and operations in an environment of declining resources. 
I will ensure that expert advice is provided to those engaged in the 
Army's efforts to improve the acquisition process and to eliminate 
fraud, waste, and abuse. I will also ensure that the Army legal 
community continues to provide timely legal advice of the highest 
quality, executing the Department's recurring legal responsibilities 
and anticipating and responding to the numerous issues the Army 
confronts every day.

                             RELATIONSHIPS

    Question. What is your understanding of the formal and informal 
relationship between the General Counsel of the Army and the following 
offices?
    The General Counsel of the Department of Defense.
    Answer. As noted above, I am advised that the General Counsel of 
DOD, Mr. Jeh Johnson, has made clear his intent to work closely with 
the General Counsels of the Military Departments. If confirmed, I 
anticipate developing a close and professional relationship with Mr. 
Johnson, characterized by continuing consultation, communication, and 
cooperation on matters of mutual interest, in furtherance of the best 
interests of the Department of the Army and DOD.
    Question. The Secretary of the Army.
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has the authority to conduct, all 
affairs of the Department. If confirmed, my primary responsibility will 
be to provide the Secretary with competent legal advice and counsel and 
to perform the duties and functions he prescribes for me. My goal will 
be to execute these responsibilities by establishing a close and 
professional relationship with the Secretary of the Army that will 
ensure my ability to communicate with him directly and candidly on 
matters of significance to the Army.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff, Army, is the senior military officer of 
the Department of the Army and a member of the Joint Chiefs of Staff. 
The Chief of Staff is directly responsible to the Secretary of the 
Army. If confirmed, I will endeavor to continue what I understand to be 
an excellent relationship between the Army General Counsel and the 
Chief of Staff and the Army Staff and will work closely with The Judge 
Advocate General to provide the Chief of Staff with appropriate legal 
advice and support in the performance of his assigned duties and 
responsibilities.
    Question. The Assistant Secretaries of the Army.
    Answer. The five Assistant Secretaries of the Army perform such 
duties and exercise such authorities as are provided by statute or 
prescribed by the Secretary. Generally, the Assistant Secretaries are 
charged to formulate and oversee policies and programs within their 
functional areas of responsibility. As the chief legal officer of the 
Department of the Army, the General Counsel provides legal advice, 
counsel, and guidance to the Assistant Secretaries and their staffs. If 
confirmed, I will establish a close and professional relationship with 
the Assistant Secretaries and provide candid and objective advice 
regarding the matters entrusted to them.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General is the legal adviser to the 
Chief of Staff of the Army, members of the Army Staff, and members of 
the Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal adviser to the 
Secretary of the Army. By law, The Judge Advocate General is primarily 
responsible for providing legal advice and services regarding the 
Uniform Code of Military Justice (UCMJ) and the administration of 
military discipline. I believe that close, professional cooperation 
between the civilian and uniformed members of the Army's legal 
community is absolutely essential to the effective delivery of legal 
services to the Department. If confirmed, I will work closely and 
collaboratively with The Judge Advocate General to ensure that the 
legal services and legal advice provided to the Army are of the highest 
possible quality.
    Question. The Inspector General of the Department of Defense.
    Answer. The Inspector General of DOD is the principal adviser to 
the Secretary of Defense on all audit and criminal investigative 
matters and for matters relating to the prevention and detection of 
fraud, waste, and abuse in the programs and operations of DOD. The 
Office of the Inspector General is an independent and objective 
organization within DOD. If confirmed, I will work with the Inspector 
General of DOD on matters related to the Department of the Army, to 
ensure that Army interests are fully and fairly represented and that 
Army actions taken as a result of DOD Inspector General recommendations 
are executed in compliance with applicable law, directives, and 
regulations.
    Question. The Inspector General of the Army.
    Answer. I understand that the The Inspector General of the Army 
reports directly to the Secretary of the Army regarding the discipline, 
efficiency, and economy of the Army, and on other matters as required. 
If confirmed, I anticipate maintaining a close and professional 
relationship with The Inspector General to ensure he has the legal 
advice and support required to accomplish his assigned duties and 
responsibilities.
    Question. The General Counsels of the other Military Departments.
    Answer. The General Counsels of the other Military Departments 
serve and act under the authority, direction, and control of the 
Secretaries of their respective Departments. If confirmed, I would 
expect to consult closely and collegially with them on matters of 
mutual interest or concern. I understand that the General Counsel of 
DOD acts to foster coordination of effort among all of the General 
Counsels so that DOD, as a whole, can make the best use of the legal 
services at its disposal. I look forward to participating in that 
effort, if I am confirmed.
    Question. The Attorney General and the Department of Justice.
    Answer. I am aware that the Attorney General and the Department of 
Justice represent the Department of the Army in civil litigation. 
Further, I have been advised that DOD and the Department of Justice 
have signed a Memorandum of Understanding delineating the areas of 
responsibility for the investigation and prosecution of offenses over 
which the two departments have concurrent jurisdiction. In view of the 
importance of the Army's relationship with the Attorney General and the 
Department of Justice, our communications must be clear, consistent, 
and timely on every level. If confirmed, I will work in conjunction 
with The Judge Advocate General and the General Counsel of DOD to 
ensure the continuation of a collaborative relationship with the 
Attorney General and the Department of Justice.

              RELATIONSHIP WITH THE JUDGE ADVOCATE GENERAL

    Question. In carrying out your duties, if you are confirmed, how 
will you work with the Judge Advocate General of the Army?
    Answer. I believe that close, professional cooperation between the 
civilian and uniformed members of the Army's legal community is 
absolutely essential to the effective delivery of legal services to the 
Department. If confirmed, I will seek to ensure that the Offices of the 
General Counsel and The Judge Advocate General, as well as The Judge 
Advocate General and I, work closely together to deliver the best 
possible legal services to the Department of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and the Judge Advocate 
General?
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army. The Office of the Army General Counsel is a 
component of the Army Secretariat, and provides advice to the Secretary 
of the Army and other Secretariat officials on any subject of law and 
on other matters, as directed by the Secretary of the Army. The Judge 
Advocate General is the legal adviser to the Chief of Staff of the 
Army, members of the Army Staff, and members of the Army generally. In 
coordination with the Army General Counsel, The Judge Advocate General 
serves as military legal adviser to the Secretary of the Army. The law 
expressly prohibits interference with the ability of The Judge Advocate 
General to give independent legal advice to the Secretary of the Army. 
Even in the absence of that statutory requirement, I would always 
welcome the expression of independent views about any legal matter 
under consideration. The Judge Advocate General also directs the 
members of The Judge Advocate General's Corps in the performance of 
their duties. By law, The Judge Advocate General is primarily 
responsible for providing legal advice and services regarding the UCMJ 
and the administration of military discipline. The Offices of the Army 
General Counsel and The Judge Advocate General have developed and 
maintain a close and effective working relationship in performing their 
respective responsibilities. If confirmed, I will work to continue this 
synergistic partnership.
    Question. If confirmed, how would you ensure that legal opinions of 
your office will be available to Army attorneys, including judge 
advocates?
    Answer. It is my understanding that the majority of legal opinions 
provided to Army attorneys and Judge Advocates are issued by the Office 
of The Judge Advocate General, and that many of these opinions are 
coordinated with the Office of the Army General Counsel. The close, 
professional cooperation between the civilian and uniformed members of 
the Army's legal community is absolutely essential to ensure that legal 
opinions issued by the Office of the Army General Counsel will be 
available to all Army attorneys and Judge Advocates and vice versa. If 
confirmed, I will seek to ensure that the Office of the Army General 
Counsel appropriately makes available any legal opinions that it 
issues.
    Question. In response to attempts within DOD to subordinate legal 
functions and authorities of the Judge Advocates General to the General 
Counsels of DOD and the Military Services, Congress enacted legislation 
prohibiting any officer or employee of DOD from interfering with the 
ability of the Judge Advocates General of the military services and the 
legal adviser to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, service secretaries, and 
service chiefs.
    What is your view of the need for the Judge Advocate General of the 
Army to have the authority to provide independent legal advice to the 
Secretary of the Army and the Chief of Staff of the Army?
    Answer. The Judge Advocate General's statutory responsibility and 
authority to provide independent legal advice, set forth in title 10, 
U.S.C., section 3037, have repeatedly been recognized as essential to 
the effective delivery of legal services. Uniformed attorneys bring 
another perspective to the practice of law, providing insight and 
advice shaped by years of service across the Army. In today's 
environment, our senior leaders both demand and deserve independent 
advice from their counsel.
    Question. What is your view of the responsibility of Army judge 
advocates to provide independent legal advice to military commanders?
    Answer. I believe that Army Judge Advocates in the field are vested 
with a critical responsibility: to provide quality, candid, legal 
advice to military commanders. Army commanders need and deserve the 
best legal advice and judgment available--that is, in part, made 
possible when Judge Advocates are empowered to provide commanders with 
independent legal advice, with appropriate guidance from supervising 
attorneys in their technical chain.
    Question. If confirmed, would you propose any changes to the 
current relationships between the Judge Advocate General of the Army 
and the Army General Counsel?
    Answer. Based upon my knowledge and understanding to date, I 
believe that The Judge Advocate General and the Army General Counsel 
have an excellent working relationship. If confirmed, I will continue 
to foster this professional and collaborative relationship with The 
Judge Advocate General and his staff to ensure the effective delivery 
of legal services to the Department of the Army.
    Question. Article 6 of the UCMJ gives primary jurisdiction over 
military justice to the Judge Advocates General of the Army, Navy, and 
Air Force.
    How do you view the responsibilities of the Army General Counsel in 
the performance of military justice matters with regard to the Judge 
Advocate General of the Army?
    Answer. The Judge Advocate General's responsibilities to ensure the 
proper administration of the military justice system require his direct 
and independent advice to the Secretary of the Army on military justice 
matters. I look forward to providing The Judge Advocate General with 
whatever support and coordination I can in this respect. I will, if 
confirmed, consult with The Judge Advocate General on matters of mutual 
interest or concern relating to military justice, recognizing his 
statutory duties and special expertise in this area. I will also work 
with The Judge Advocate General in safeguarding the integrity of the 
military justice system.

                ATTORNEY RECRUITING AND RETENTION ISSUES

    Question. If confirmed, how do you assess your ability to hire and 
retain top quality attorneys and provide sufficient opportunity for 
advancement?
    Answer. I understand that the Army continues to recruit and retain 
top quality military and civilian attorneys and provide them 
opportunities for advancement. If confirmed, I will continue to monitor 
and assess recruitment, retention, and advancement programs for our 
military and civilian attorneys.
    Question. In your view, does the Department of the Army have a 
sufficient number of civilian and military attorneys to perform its 
missions?
    Answer. I understand that the Army's enhanced mission requirements 
in recent years have fueled appropriate growth in the Army's legal 
community. If confirmed, I will evaluate whether the number of 
attorneys in the Department of the Army is sufficient to support the 
successful accomplishment of all the Army's assigned missions.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. In my view, retention of top notch military and civilian 
attorneys is essential to the current and future success of Army legal 
services. Although I am unfamiliar with the full scope of attorney 
retention programs available in the Army, if confirmed, I intend to 
review these programs carefully and support those incentives and 
initiatives that affect the retention of the best attorneys to support 
the Army mission.

                            DETAINEE ISSUES

    Question. What role do you expect to play, if confirmed, in 
addressing legal issues regarding detainees?
    Answer. Properly addressing legal and policy issues associated with 
detainees and detention operations is of vital importance to DOD and 
the Nation as a whole. I understand that the Office of the Army General 
Counsel and the Office of The Judge Advocate General support the DOD 
General Counsel in executing elements of the President's Executive 
Orders related to detainee operations. Additionally, if confirmed, and 
in coordination with The Judge Advocate General, I will provide advice 
to the Secretary of the Army in his role as the DOD Executive Agent for 
the administration of detainee operations policy, with particular focus 
on our obligation to treat all detainees humanely.
    Question. Section 1403 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2006 provides that no individual in the custody 
or under the physical control of the U.S. Government, regardless of 
nationality or physical location, shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is the foregoing prohibition in the best interest of 
the United States? Why or why not?
    Answer. Yes, I firmly believe that this prohibition is in the best 
interest of the United States. This prohibition is consistent with the 
long-standing military tradition of applying the humanitarian 
provisions of the Law of War to those individuals who, for whatever 
reason, are no longer actively participating in hostilities and find 
themselves in custody. Moreover, this prohibition is consistent with 
international standards to which the United States is a party. 
Prohibiting the cruel, inhumane, or degrading treatment or punishment 
of individuals in our custody or under our physical control upholds our 
ideals and reinforces our moral authority around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. Although the phrase ``cruel, inhuman, or degrading 
treatment'' is, on its face, susceptible to broad interpretation, the 
proscriptions on such conduct contained in the Department's 
implementing directives, as well as the provisions of the Geneva 
Conventions that are embodied in those directives, make it clear to 
soldiers what conduct is prohibited. If confirmed, I will ensure the 
Army's implementation of this policy in doctrine, to include training 
manuals, is clearly understood.
    Question. What role do you believe the General Counsel of the Army 
should play in the interpretation of this standard?
    Answer. The appropriate role of the General Counsel is to provide 
advice to the Secretary of the Army and his staff on detention and 
interrogation policies that implement this standard. If confirmed, I 
will ensure Army implementation is consistent with the law, the intent 
of the administration, and the guidance issued by the Secretary of 
Defense.
    Question. What role do you believe the Judge Advocate General of 
the Army should play in the interpretation of this standard?
    Answer. The appropriate role of The Judge Advocate General is to 
provide advice to the Chief of Staff of the Army and the Army staff on 
detention and interrogation policies that implement this standard. I 
believe that The Judge Advocate General should continue the training 
programs that have been developed for Judge Advocates in the field. I 
understand that these programs have proven to be instrumental in 
attaining and maintaining adherence to this standard.
    Question. If confirmed, will you take steps to ensure that all 
relevant Army directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. I will. I believe the requirements of section 1403 and 
Common Article 3 of the Geneva Conventions are essential to maintaining 
a disciplined Army, whose actions are grounded in the rule of law.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I do. These standards have been instrumental in promoting 
the confidence of the American people in the Army and have been and 
will continue to be important in guiding our soldiers' actions in 
contingency operations.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of Common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. These sections of the War Crimes Act were necessary to 
define the ``serious crimes'' or ``grave breaches'' of Common Article 3 
to the Geneva Conventions. Identifying these felony-level offenses in 
our domestic law implemented our international law obligations to 
define, with specificity, the grave breaches that must be prosecuted 
under the Law of War. In addition, I believe that we must continue to 
enforce these standards through the promulgation of doctrine, training, 
and oversight, and that we must hold soldiers accountable for 
violations of these standards.

                     CONTRACTORS ON THE BATTLEFIELD

    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operations. The extensive involvement of contractor employees 
in a broad array of activities--including security functions--has 
raised questions about the legal accountability of contractor employees 
for their actions.
    Do you believe that current DOD and Department of the Army 
regulations appropriately define and limit the scope of security 
functions that may be performed by contractors in an area of combat 
operations?
    Answer. It is my understanding that the DOD regulation concerning 
workforce mix was updated in 2010 to better define and limit the scope 
of security functions that may be performed by contractors in an area 
of combat operations. It is also my understanding that the DOD 
regulation on contractor personnel authorized to accompany the U.S. 
Armed Forces is presently under review. If confirmed, I will support 
this review, as appropriate. Additionally, the Office of Federal 
Procurement Policy (OFPP) recently redefined the term ``inherently 
governmental'' in OFPP Policy 11-01, effective on October 12, 2011. 
This new policy added to the list of inherently governmental functions: 
(i) security functions performed in combat; and (ii) security 
operations in certain situations connected with combat or potential 
combat. I am advised that this means that each and every one of these 
situations should be evaluated on a case-by-case basis to determine 
which security functions and activities are inherently governmental and 
which can be performed by contractors with appropriate management and 
oversight. If confirmed, I will support this process.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. It would be premature for me to recommend any changes to 
DOD or Department of the Army regulations. If confirmed, I will 
carefully consider the current departmental regulations and the results 
of ongoing reviews and make appropriate recommendations to the 
Secretary of the Army.
    Question. Do you believe that current DOD and Department of the 
Army regulations appropriately define and limit the scope of contractor 
participation in the interrogation of detainees?
    Answer. I understand that the current DOD and Department of the 
Army regulations define and, as properly implemented, limit the scope 
of contractor participation in the interrogation of detainees. However, 
the NDAA for Fiscal Year 2010 significantly limits departmental 
authority to use contractors in an interrogation role. It is my 
understanding that DODD 3115.09, DOD Intelligence Interrogations, 
Detainee Briefings, and Tactical Questioning, is under revision, and 
that the draft addresses the limitations on contract interrogators 
prescribed in the NDAA for Fiscal Year 2010.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. Although I have no basis of knowledge on which to propose 
changes at this time, I will, if confirmed, review applicable DOD and 
Department of the Army regulations to determine what, if any, changes 
may be necessary and appropriate.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons.'' OMB recently issued guidance clarifying the applicability of 
these terms to the performance of security functions.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. In the recently revised Office of Federal Procurement 
Policy (OFPP) policy addressing inherently governmental functions, 
security operations are listed as inherently governmental when they are 
performed in actual combat situations. For situations where security 
will be performed in any hostile situation other than actual combat, 
the circumstances should be evaluated on a case-by-case basis to 
determine which security functions and activities are inherently 
governmental and which can be performed by contractors with appropriate 
management and oversight. If I am confirmed, I intend to examine this 
issue in greater depth.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. Currently, DOD policy allows properly trained and cleared 
contractors to conduct government-approved interrogations, provided 
they are supervised and closely monitored throughout the process by 
properly trained DOD military or civilian personnel. However, the NDAA 
for Fiscal Year 2010 significantly limits departmental authority to use 
contractors in an interrogation role. It is my understanding that DODD 
3115.09, DOD Intelligence Interrogations, Detainee Briefings, and 
Tactical Questioning, is under revision, and that the draft addresses 
the limitations on contract interrogators prescribed in the NDAA for 
Fiscal Year 2010.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I will provide advice to the Secretary of the 
Army and other senior departmental officials regarding the functions 
that contractors may legally perform on the battlefield. I will assist 
them in implementing policies regarding the use of contractors that are 
consistent with applicable statutory and regulatory constraints.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. Under the MEJA, Federal jurisdiction covers felony offenses 
committed overseas by members of the Armed Forces who leave military 
service prior to prosecution or who conspire with non-servicemembers 
covered by MEJA; civilian employees of DOD; contractors (including 
subcontractors at any tier) of DOD; dependents of the above; and 
civilian employees and contractors (including subcontractors at any 
tier) of any other Federal agency, but only to the extent their 
``employment relates to supporting the mission of DOD.'' I understand 
that the goal of MEJA is to ensure that U.S. Federal employees and 
contractors supporting DOD missions overseas, who commit serious 
crimes, are not be able to escape Federal prosecution for serious 
offenses such as murder and rape simply because of a potential 
jurisdictional gap in the law. There is no analogue to MEJA for felony 
offenses committed by non-defense personnel overseas who are not 
supporting the mission of DOD. Rather, civilian employees and 
contractors who cannot be shown to be supporting the mission of DOD may 
be prosecuted only under certain specific statutes of extraterritorial 
scope. I understand, however, that this gap would be addressed by the 
enactment of the Civilian Extraterritorial Jurisdiction Act (CEJA) of 
2011, currently pending before the Senate.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. In my opinion, CEJA would provide an effective means for 
the United States to exercise extraterritorial criminal jurisdiction 
over non-DOD Federal employees and contractors in Iraq, Afghanistan, 
and other areas of operation, who engage in conduct that would 
constitute a felony-level Federal crime in the United States. If 
confirmed, I will assess whether any change or supplement to MEJA may 
be appropriate.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I would seek to offer my views and assist in 
developing proposals to change or supplement MEJA. I would also 
coordinate closely with The Judge Advocate General and the DOD Office 
of General Counsel in the development of any such proposals, given the 
complementary and sometimes competing availability of criminal 
jurisdiction under the UCMJ.
    Question. Section 552 of the NDAA for Fiscal Year 2007 extended 
criminal jurisdiction of military courts-martial under the UCMJ to 
persons serving with or accompanying an armed force in the field during 
time of declared war or a contingency operation, such as our current 
operations in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction over 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I am aware that Article 2 of the UCMJ was amended in 2006 
to extend UCMJ jurisdiction over persons serving with or accompanying 
U.S. Armed Forces in the field in times of declared war or in a 
contingency operation. This amendment authorized a commander's exercise 
of UCMJ disciplinary authority over certain civilians--for example, a 
contractor employee whose criminal conduct jeopardized good order and 
discipline or discredited the Armed Forces and thereby had a potential 
adverse effect on military operation. The Secretary of Defense, in 
turn, published guidance on the prudent exercise of this unique 
authority. I understand that this guidance enumerated the command and 
law enforcement authorities available when a crime is committed within 
a commander's geographic area of responsibility outside the United 
States. This guidance further ensures that the Department of Justice 
and DOD each play an appropriate role in resolving whether jurisdiction 
over the civilian is most appropriately exercised in a military court 
under Article 2 of the UCMJ, or in a Federal District Court under MEJA 
or other Federal laws.
    Question. What is your view of the procedures agreed upon by DOD 
and the Department of Justice to reconcile jurisdictional 
responsibilities under MEJA and the UCMJ?
    Answer. I understand that current policy requires DOD to notify the 
Department of Justice when offenses alleged to have been committed by 
civilians violate U.S. Federal criminal laws and to afford the 
Department of Justice the opportunity to pursue prosecution of the case 
in Federal Court. As stated above, such notification provides DOD and 
the Department of Justice the opportunity to determine whether 
jurisdiction is more appropriately exercised under the UCMJ or pursuant 
to MEJA or other Federal laws. If confirmed, in coordination with The 
Judge Advocate General and subject to consultation with the General 
Counsel of DOD, I will monitor cases in which the UCMJ or MEJA are 
employed to assess the effectiveness of the current procedures and 
evaluate whether further refinements of these procedures may be 
necessary.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. At this time, I am not aware of any specific provisions in 
the UCMJ that need change in this area.

                          ATTACKS AT FORT HOOD

    Question. In your view, do current Army policies limit the ability 
to include information in official records that may assist in the 
identification of potential threats?
    Answer. At this time, I am not sufficiently familiar with current 
Army policies regarding the filing of information in official records 
to permit me to express an opinion on this important question. I am 
informed, however, that the Army has made progress in addressing the 
issues associated with the identification of potential threats. If 
confirmed, I will look closely at this issue, in coordination with the 
Assistant Secretary of the Army (Manpower and Reserve Affairs); the 
Deputy Chief of Staff, G-1; and the Deputy Chief of Staff, G-2.
    Question. Do current Army procedures hinder the ability to share 
this type of information with other official agencies charged with 
identifying and monitoring potential extremist or terrorist activities?
    Answer. I am not aware of any specific procedures that hinder the 
ability to share information between agencies. However, if confirmed, I 
will review this matter to ensure that the Army's procedures for 
sharing potential threat and other force protection-related information 
both internally (e.g., with the Army Criminal Investigation Command), 
and with other DOD or Federal law enforcement or intelligence agencies 
are effective and in compliance with all applicable laws, directives, 
and regulations, as appropriate.
    Question. What is your understanding of how the Army balances the 
need to identify and respond to potentially harmful extremist views 
held by soldiers against individual privacy and respect for the right 
of soldiers to hold and express personal beliefs?
    Answer. It is my understanding that the Army currently has a robust 
policy that proscribes participation in extremist organizations and 
activities. Commanders have been empowered to maintain good order and 
discipline in their units, and enforcement of this policy is a function 
of command. I further understand that the Army mandates reporting of 
suspected or possible international or domestic terrorist activity, 
espionage, compromises of security or classified information, and 
similar activities. It is my understanding that the Army regulation 
addressing counterintelligence and other threat awareness and reporting 
was updated in November 2010. If confirmed, I will work closely with 
the proponents of force protection policies to ensure that Army 
programs addressing potential threats maintain the proper balance 
between the need for commanders to maintain good order and discipline 
and protect the force, and soldiers' rights to privacy and to hold and 
express personal beliefs.
    Question. Do you see a need for a change in this balance?
    Answer. At this time, I have no basis of knowledge on which to 
formulate an opinion on this important issue. I do, however, recognize 
that this is a Department-wide issue that extends beyond the Army. If 
confirmed, I would support any and all DOD initiatives in this area.

                          RELIGIOUS GUIDELINES

    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Army regarding religious 
practices in the military?
    Answer. It is my understanding that the Army's policies support 
religious tolerance and mutual respect. If confirmed, I would continue 
the Army's firm commitment to upholding the Constitutional tenets of 
the ``free exercise'' and ``establishment'' clauses and review policies 
as necessary to assure continued compliance with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have been informed that current Army policies require 
chaplains to support all unit personnel, regardless of their beliefs. 
It is my view that these Army policies do accommodate free exercise of 
religion. If confirmed, I am willing to study this issue further to 
determine if changes in policy are necessary and appropriate.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. I understand that during mandatory official functions, 
chaplains are not compelled to offer prayers that are inconsistent with 
their faith, but are expected to remain sensitive to the pluralistic 
Army and society they serve. In my opinion, these policies strike an 
appropriate balance, given the diversity of religious views in the 
Army. If confirmed, I would be willing to study this issue further to 
determine if changes in policy are necessary and appropriate.

         ROLE IN THE OFFICER PROMOTION AND CONFIRMATION PROCESS

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the integrity and 
proper functioning of the officer promotion process?
    Answer. I have been informed that under title 10, U.S.C., chapter 
36, the Secretary of the Army is responsible for the proper functioning 
of the Department of the Army's promotion selection process. In 
addition to the legal review of Memoranda of Instruction and selection 
board reports to ensure they comport with statutory standards, the Army 
General Counsel must also ensure the conduct of the board process 
conforms to all legal requirements. The diligent execution of this 
function requires advising the Secretary of the Army of any case in 
which a selection board report or selection board process fails to 
adhere to the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Army and the Office of the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), the General Counsel helps to 
ensure that Army promotion policies properly implement applicable laws 
and regulations and are fairly applied. In these matters, the Office of 
the Army General Counsel coordinates closely with The Office of the 
Judge Advocate General.
    Question. Do you see a need for change in this role?
    Answer. It is my understanding that the current process is working 
well; however, if I am confirmed and determine that a change is 
necessary, I would work closely with the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), The Judge Advocate General, and 
the Deputy Chief of Staff, G-1, to effect such change, while 
maintaining both the integrity of the Army's promotion process and the 
trust of the Army Officer Corps, Congress, and the American people.

                  GENERAL AND FLAG OFFICER NOMINATIONS

    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion and certain assignments.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general officer 
nominations?
    Answer.
        <bullet> I have been informed that for all officer promotions, 
        including general officer promotions, the Office of the Army 
        General Counsel, in coordination with the Office of The Judge 
        Advocate General, plays an active role in the officer promotion 
        system, to include: Reviewing Memoranda of Instruction that 
        govern the conduct of promotion selection boards and subsequent 
        promotion selection board reports.
        <bullet> As to officers being considered for promotion to a 
        grade below general officer, I have been advised that adverse 
        information that is not in an officer's official military 
        personnel file that may be presented to the promotion selection 
        board is reviewed to ensure it is accurate and comports with 
        the requirements of title 10 (i.e., that it is ``substantiated, 
        relevant information that could reasonably affect the 
        deliberations of the selection board'').
        <bullet> In general officer cases, the standard for adverse 
        information that must be presented to a promotion selection 
        board is ``any credible information of an adverse nature.'' I 
        have been advised that the Office of the Army General Counsel 
        participates in a robust screening process designed to ensure 
        that all adverse information is properly identified for 
        presentation to the promotion selection board.
        <bullet> I have been advised that when adverse information 
        about an officer becomes available after a promotion selection 
        board makes its recommendations, the Office of the Army General 
        Counsel and the Office of The Judge Advocate General coordinate 
        in providing legal advice to the Secretary of the Army. This 
        advice enables the Secretary's determination as to whether a 
        promotion review board should be convened to consider whether 
        to continue to support the promotion of the considered officer 
        or take steps to remove the officer from the promotion list.

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand that under title 10, the Secretary of the Army 
is responsible for the proper functioning of the Department of the 
Army's promotion selection process. Prior to approval by the Secretary 
of the Army, all Memoranda of Instruction for officer promotion 
selection boards are reviewed by the Office of the Army General 
Counsel, in coordination with the Office of The Judge Advocate General, 
to ensure the Secretary's instructions conform to statutes and 
accurately reflect his guidance regarding attributes necessary for 
service in the next grade. All reports of promotion selection boards 
are processed through the Office of the Army General Counsel prior to 
final action on the report by the Secretary. The Army General Counsel 
must be satisfied that the Army has met applicable statutory standards 
and that individual selection board reports conform to the law. The 
Army General Counsel must advise the Secretary of the Army of any case 
in which a selection board report fails to adhere to the statutory 
standards, either generally or with regard to a particular officer 
being considered for promotion. In advising the Secretary of the Army 
and the Office of the Assistant Secretary of the Army (Manpower and 
Reserve Affairs), the Army General Counsel helps to ensure that Army 
promotion policies properly implement applicable laws and regulations 
and are fairly applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that under current Department of the 
Army practice, the Office of the Army General Counsel reviews each 
selection board report, as well as departmental communications to the 
Committee, the President, and the Secretary of Defense, to ensure that 
the reports and communications comply in form and substance with law 
and applicable directives and regulation. The Office of the Army 
General Counsel gives special attention to cases of nominees with 
substantiated or potentially adverse information and cases with 
reportable information in order to ensure that such information is 
reported to the Senate Armed Services Committee in a timely, accurate, 
and comprehensible manner.

                  MILITARY PERSONNEL POLICY AND CASES

    Question. In your view, what role, if any, should the General 
Counsel and civilian attorneys assigned to the Office of General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work with the Secretary of the Army, 
the Assistant Secretary of the Army (Manpower and Reserve Affairs), and 
other senior leaders, to ensure that the Army properly develops and 
fairly applies military personnel policies. Were I to become aware that 
the Department did not fairly and lawfully apply military personnel 
policies, I would take appropriate action to ensure that the Army 
properly resolves the issue. In addition, I am aware of and fully 
respect the independent role that the Army Board for the Correction of 
Military Records (ABCMR) plays in the correction of military records, 
and if confirmed, I would coordinate with the Assistant Secretary of 
the Army (Manpower and Reserve Affairs), who exercises overall 
responsibility for the Army Review Boards Agency, regarding the legal 
sufficiency of ABCMR recommendations to the Secretary of the Army.

             SEXUAL ASSAULT PREVENTION AND RESPONSE POLICY

    Question. Numerous cases of sexual misconduct involving soldiers 
have been reported from Iraq, Kuwait, and Afghanistan over the last 
several years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
military failed to respond appropriately by providing basic services, 
including medical attention and criminal investigations of their 
charges.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of serious sexual 
assaults the medical, psychological, and legal help they need?
    Answer. This is an extremely important issue for the Army and, if 
confirmed, I will focus significant attention on it. Although I am not 
fully aware of all Army initiatives or resources to help sexual assault 
victims, I understand that the Army has taken significant steps to 
improve the assistance to all victims of sexual assaults, with specific 
attention to victims in a deployed environment. If confirmed, I will 
study this matter in greater depth with a view to ensuring the Army 
continues to take appropriate steps to provide medical, psychological, 
and legal help to soldiers who are victims of sexual assault, both in 
garrison and in deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent sexual assaults on female soldiers at their home stations and 
when they are deployed?
    Answer. It is my view that the Army has taken several extremely 
important steps in its campaign to prevent sexual assaults on female 
soldiers at their home stations and when deployed. I am aware that in 
2008, the Army launched a comprehensive new sexual assault prevention 
and response campaign that has continued to grow through the present 
day. If confirmed, I will ensure that the legal community fully 
supports this initiative.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. At this time I am not familiar with all of the Army's 
training and resources to investigate and respond to allegations of 
sexual assault. If confirmed, I will assess whether additional steps 
should be taken to support victims and hold offenders accountable.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. I have been advised that the Army has focused both on 
eliminating sexual assault from its ranks and on increasing victim 
support--both key elements of an effective program to address sexual 
assault. I have been advised that part of the focus on victim support 
involves an option for confidential reporting (also called 
``restricted'' reporting), which I understand allows sexual assault 
victims to disclose, confidentially, the details of their assault to 
specified individuals and to receive medical treatment and counseling 
without triggering the official investigative process. If confirmed, I 
will work with knowledgeable professionals to assess and ensure the 
continuation of effective Army programs in this regard.
    Question. Specifically, do you think that Sexual Assault Response 
Coordinators should be attended a confidentiality privilege in order to 
help them perform their duties more effectively?
    Answer. If confirmed, I will work with knowledgeable professionals 
to determine whether extending a confidentiality privilege to Sexual 
Assault Response Coordinators would allow them to perform their duties 
more effectively.

                        WHISTLEBLOWER PROTECTION

    Question. Section 1034 of title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. Whistleblower protections for military personnel affirm 
that members of the Armed Forces must be free from reprisal for making 
or preparing a protected communication to a Member of Congress; an 
Inspector General; a member of a DOD audit, inspection, investigation, 
or law enforcement organization; or any other person or organization 
(within or outside the chain of command) designated under regulations 
or established procedures to receive such communications. I believe 
that these protections are essential. If confirmed, I will work with 
The Judge Advocate General to ensure that senior military leaders are 
fully and accurately advised of the whistleblower protections accorded 
by law and regulation to all soldiers, and that they understand their 
legal responsibilities in this important area. In addition, I will 
ensure that any individual cases involving allegations of reprisal that 
may come to my attention are fully addressed in accordance with the 
law.

                   SUPPORT TO ARMY INSPECTOR GENERAL

    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. If confirmed as the chief legal officer of the Department 
of the Army and counsel to the Secretary of the Army and other 
Secretariat officials, I will establish and maintain a close, 
professional relationship with The Inspector General, and will 
communicate with him directly and candidly. I will provide independent 
and objective legal advice to The Inspector General and the Secretary 
with regard to all matters that relate to Inspector General programs, 
duties, functions, and responsibilities. In coordination with The Judge 
Advocate General, I will oversee the provision of effective legal 
guidance to the Office of The Inspector General in conducting 
investigations and making recommendations. Further, as part of my 
responsibility to review legal and policy issues arising from the 
Army's intelligence and counterintelligence activities, I will advise 
The Inspector General concerning proper reporting of the Army's 
intelligence oversight activities.

                            WOMEN IN COMBAT

    Question. Current DOD policies regarding the combat role of women 
in uniform have been in effect since 1994.
    What is your understanding of the conclusions and lessons that have 
been learned from operations in Iraq and Afghanistan about the 
feasibility of current policies regarding the assignment of women?
    Answer. At this time, I do not have enough information to make an 
informed assessment of the conclusions and lessons learned from 
operations in Iraq or Afghanistan in regard to women in combat. It is 
my understanding that the Army is in compliance with DOD policy 
relating to the assignment of women.
    Question. What is your assessment of the Army's compliance with the 
requirements of law relating to the assignment of women?
    Answer. It is my understanding that the Army is in compliance with 
the requirements of the DOD policy relating to women in combat. Women 
have and will continue to be an integral part of the Army team, 
performing exceptionally well in all specialties and positions open to 
them.

                           CIVILIAN ATTORNEYS

    Question. Judge advocates in the Armed Forces benefit from an 
established career progression, substantial mentoring and training 
opportunities, and exposure to a broad spectrum of legal areas and 
leadership responsibilities. By contrast, civilian attorneys in the 
Military Departments normally do not have established career programs 
and may do the same work for many years, with promotion based solely 
upon longevity and vacancies.
    What is your understanding of the personnel management and career 
development system for civilian attorneys?
    Answer. It is my view that robust attorney career development 
programs result in excellence in client service, the recruitment and 
retention of high-performing professionals, and building the bench for 
the future. If confirmed, I will be in a position to examine this issue 
closely to ensure comprehensive and effective personnel management and 
career development programs for civilian attorneys.
    Question. In your view does that system need revision? If so, what 
do you see as the major problems and what changes would you suggest?
    Answer. As discussed above, robust attorney career development 
programs result in excellence in client service, the recruitment and 
retention of high-performing professionals, and build the bench for the 
future. However, it may be appropriate to review past experience with a 
view toward identifying any areas that can be approved. If confirmed, I 
will be in a position to examine this issue closely to ensure 
comprehensive and effective personnel management and career development 
programs for civilian attorneys.

                                 CLIENT

    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Army?
    Answer. The client of the General Counsel of the Department of the 
Army is the Department of the Army, acting through its authorized 
officials.

                           ACQUISITION ISSUES

    Question. What role should the General Counsel play in ensuring 
that Army procurement programs are executed in accordance with the law 
and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Acquisition, Logistics and 
Technology), and other senior Department of the Army leaders to ensure 
that the Department of the Army's acquisition and procurement programs 
are executed in accordance with applicable provisions of the U.S. Code, 
as well as controlling regulations and policies. Today's acquisition 
professionals face the challenge of managing their programs' cost, 
schedule, and performance while remaining in compliance with a myriad 
of legal and policy requirements. I believe it is the responsibility of 
Army lawyers to proactively assist their acquisition clients in meeting 
that challenge. From the earliest stages of program development, 
counsel should be involved in identifying potential issues and, where 
appropriate, legally-compliant alternative courses of action. In those 
rare situations where an issue cannot be satisfactorily resolved, it is 
incumbent on counsel to elevate their concerns promptly in order to 
protect the Department's overarching interests.
    Question. What role should the General Counsel play in ensuring 
that Army acquisition officials understand flexibilities provided by 
Congress in the acquisition and financial statutes and can take 
advantage of those flexibilities to act in the best interests of the 
Army?
    Answer. If confirmed, I would work closely with the Assistant 
Secretary of the Army (Acquisition, Logistics and Technology) and the 
Assistant Secretary of the Army (Financial Management and Comptroller) 
to ensure that the Army's acquisition programs and financial operations 
are executed in a manner that is consistent with their governing legal 
framework and to challenge program strategies that may be premised on 
an unduly restrictive interpretation of the applicable authorities.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Army personnel and by Army contractors?
    Answer. Structuring departmental business practices to avoid both 
personal and organizational conflicts of interest should be one of the 
Army's highest priorities. If confirmed, I will work closely with the 
Secretary of the Army, the Assistant Secretary (Acquisition, Logistics, 
and Technology) and other senior departmental officials to promote an 
organizational climate that is sensitive to the need to avoid conflicts 
of interest and that reacts appropriately when specific issues arise. I 
believe that Army lawyers can make a significant contribution to this 
endeavor through the provision of acquisition ethics training and 
through early and sustained involvement in the Department's acquisition 
programs and procurement activities.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been wide-spread.
    What role should the General Counsel play in ensuring that Army 
personnel are properly trained in contingency contracting and are 
supervised in the performance of their duties?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology), and other senior Department of the Army personnel to 
ensure that the legal community continues to support fully the 
initiatives currently being implemented to improve contingency 
contracting and to enhance the contracting workforce overall. I would 
also work closely with The Judge Advocate General of the Army and the 
other legal offices to ensure that adequate legal resources are 
available to support the contingency contracting mission.

                    DETECTING CONFLICTS OF INTEREST

    Question. Personal and organizational conflicts of interest have 
become a major concern. DOD's expanded use of private contractors being 
tasked to perform key functions that the Services had formerly 
performed in-house and the new requirement to fill thousands of DOD 
civilian positions with experienced, qualified individuals present 
challenges in preventing conflicts of interest and the appearance of 
conflicts of interest.
    What do you think the Army should do, and what should the General 
Counsel's role be, in ensuring that the Army identifies personal and 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. If confirmed, I would closely examine the Army's process 
for reviewing and preventing both personal and organizational conflicts 
of interest. I believe that ethics awareness and instruction for all 
personnel is vitally important, and I would ensure that ethics training 
is a priority at all echelons. Bringing functions back ``in-house'' 
must be closely monitored with respect to former contractor employees 
and their relationships to their former employers. If confirmed, I 
would work closely with senior Army officials to foster a high level of 
organizational sensitivity to these concerns and to assist in the 
appropriate resolution of individual situations that may arise.
    Question. What is your understanding of the steps the Army takes to 
identify and address potential conflicts of interest during the hiring 
process?
    Answer. I understand that financial disclosure reporting is a 
primary source of information to identify and prevent conflicts of 
interest. If confirmed, I would emphasize the importance of properly 
identifying positions requiring financial disclosure reporting and 
ensure that rigorous and timely review of the reports is accomplished 
by both ethics counselors and supervisors. If confirmed, I will 
emphasize education in conflicts of interest in the Army's ethics 
training program.
    Question. Recent reports have raised concerns about potential 
personal conflicts of interest by contractor employees, including 
retired general and flag officers (``senior mentors'') who advise 
senior government officials.
    What is your understanding of existing statutes and regulations 
pertaining to personal conflicts of interest by contractor employees 
who advise senior government officials?
    Answer. I understand that concerns have been raised in media 
reports about the Military Services' senior mentor programs. In the 
past, the Army's senior mentors often were contractor employees, but I 
understand the Secretary of Defense and Secretary of the Army have 
issued policies that mandate employment of senior mentors as Highly-
Qualified Experts (HQEs). This means they are Federal Government 
employees and not contractor employees. Further, I understand that in 
this capacity, senior mentors file public financial disclosure reports, 
which are reviewed by their supervisors and Army ethics counselors for 
financial conflicts of interest. Thus, all the normal statutes and 
regulations pertaining to employee conflicts of interest now apply to 
senior mentors. With respect to other contractor employees who might 
advise senior government officials, if confirmed, I would emphasize the 
importance of finding acceptable employment or contract arrangements 
that would minimize conflicts of interest, or any appearance thereof, 
that could undermine the public's confidence in the integrity of this 
program.
    Question. Do you see any need for changes to these statutes and 
regulations?
    Answer. At the present time, with the Secretary of Defense and 
Secretary of the Army policies pertaining to senior mentors in place, I 
believe that the statutes and regulations on personal conflicts of 
interest adequately protect the public interest. If confirmed, I would 
monitor this issue and, if I concluded that any changes were warranted, 
I would proceed through the Department's procedures for proposing 
legislative and regulatory changes.
    Question. What role do you see for the General Counsel in 
identifying and addressing potential conflicts of interest by employees 
of Army contractors?
    Answer. In my opinion, the Army General Counsel should work closely 
with the Assistant Secretary of the Army (Acquisition, Logistics and 
Technology) to ensure compliance with restrictions imposed by the 
Federal Acquisition Regulation pertaining to organizational conflicts 
of interest. I also would ensure that Army lawyers emphasize this area 
as part of the Department of the Army's program for annual ethics 
training.

                              LEGAL ETHICS

    Question. What is your understanding of the action a Department of 
the Army attorney or an Army judge advocate should take if the attorney 
becomes aware of improper activities by a Department of the Army 
official who has sought the attorney's legal advice and the official is 
unwilling to follow the attorney's advice?
    Answer. Army attorneys generally provide legal advice to Army 
officials in their capacity as representatives of the Department of the 
Army. The Department of the Army is the attorney's client, and no 
attorney-client privilege is established between the attorney and the 
Army official. When an Army attorney advises an Army official, the 
official may use that advice to exercise official functions and duties. 
If an Army attorney suspects that the individual Army official, either 
in exercising such functions or in failing to do so, violates a law or 
standard of conduct, I believe the attorney has an obligation to report 
the potential violation to the appropriate higher authority.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. I understand that government attorneys may participate in 
pro bono activities so long as the representation is consistent with 
general governmental ethical rules and with the rules of professional 
responsibility applicable to attorneys. I understand that Army civilian 
attorneys may, for instance, perform pro bono work with supervisory 
approval so long as the representation does not occur on government 
time or at its expense, does not interfere with official duties, and 
does not create a conflict of interest or the appearance of a conflict 
of interest. I understand the Army also operates a legal assistance 
program for soldiers and their families, providing free services in 
areas such as family law, wills and estate planning, tax law, landlord/
tenant matters, contract disputes, consumer law, and assistance during 
the disability evaluation system. If confirmed, I would review the 
current policies in coordination with The Judge Advocate General and 
recommend revisions, if appropriate.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Army provide adequate guidance?
    Answer. The Army has comprehensive regulations, based upon the 
American Bar Association Model Rules of Professional Conduct, that 
govern the ethical conduct of Army lawyers, both military and civilian. 
All Army attorneys must, at all times, be in good standing with the 
licensing authority of at least one State, territory of the United 
States, the District of Columbia, or the Commonwealth of Puerto Rico. 
This regulatory system would appear to provide adequate guidance; 
however, if confirmed, I would review the current policy, in 
coordination with The Judge Advocate General and, as appropriate, 
recommend revisions.

            LITIGATION INVOLVING THE DEPARTMENT OF THE ARMY

    Question. What is your understanding of the relationship between 
the Department of the Army and the Department of Justice with respect 
to litigation involving DOD?
    Answer. The Department of Justice represents the Department of the 
Army in civil litigation. In general, it is my understanding that 
coordination between the Department of Justice and the Department of 
the Army is timely and consistent on every level. If confirmed, I will 
work with The Judge Advocate General and the General Counsel of DOD to 
ensure the continuation of a collaborative relationship with the 
Department of Justice with respect to litigation involving the 
Department of the Army.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. The Department of the Army's interests in civil litigation 
are effectively protected and defended by the Department of Justice. If 
confirmed, I will work with The Judge Advocate General to ensure that 
adequate resources are available to ensure that the Army is able to 
provide the appropriate level of support to the Department of Justice 
and to protect the Army's interests and equities in civil litigation in 
which it is involved.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Brad R. Carson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Brad Carson, of Oklahoma, to be General Counsel of the Department 
of the Army, vice Benedict S. Cohen, resigned.
                                 ______
                                 
    [The biographical sketch of Brad R. Carson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Brad Rogers Carson
Degrees Completed
        <bullet> University of Oklahoma College of Law, Norman, OK. 
        Juris Doctorate with Highest Honors. Attended 1991-1994.
        <bullet> Trinity College, Oxford University, Oxford, United 
        Kingdom. M.A. Politics, Philosophy, and Economics. Attended 
        1989-1991. (Attended as Rhodes Scholar).
        <bullet> Baylor University. Waco, TX. B.A. magna aim laude with 
        highest honors. Attended 1985-1989.
Professional Experience
        <bullet> Associate Professor of Law and Business, University of 
        Tulsa, January 2010-present. Joint appointment in University of 
        Tulsa College of Law and the Collins College of Business at the 
        University of Tulsa. Classes taught include: Property, Energy 
        Policy, Negotiations and Game Theory, and Seminar on 
        Globalization.
        <bullet> Director, National Energy Policy Institute, Tulsa, OK, 
        January 2010-present. Directs research institute devoted to 
        better understanding American energy policy options. Completed 
        multi-million dollar study, buttressed by more than 20 
        technical papers, entitled ``Toward a New National Energy 
        Policy: Assessing the Options.'' Organizing semiannual 
        conferences and numerous symposia on energy issues. Spring 2011 
        Conference entitled ``OPEC at 50: Its Past, Present, and Future 
        in a Carbon-Constrained World.''
        <bullet> Officer-In-Charge, Weapons Intelligence Teams, 84th 
        Explosive Ordnance Disposal Battalion, Multi-National Division 
        South, Iraq, December 2008-December 2009. Awarded Bronze Star, 
        Army Achievement Medal.
        <bullet> President and Chief Executive Officer, Director, 
        Cherokee Nation Businesses, L.L.C., Catoosa, OK, April 2005-
        December 2008.
        <bullet> Fellow, Institute of Politics, Harvard University, 
        Cambridge, MA, 2005, Led seminar at Harvard University on 
        contemporary American politics.
        <bullet> U.S. House of Representatives, Washington, DC, Member 
        of Congress, 2nd District of Oklahoma, 2001-2005, 107th and 
        108th Congresses.
        <bullet> Department of Defense, Pentagon, Arlington, VA, 
        Special assistant to the Secretary of Defense for Special 
        Projects and White House Fellow, 1997-1998.
        <bullet> Crowe & Dunlevy, P.C., Tulsa, OK, Antitrust Attorney, 
        1994-1997, 1999.
Memberships
        <bullet> U.S. Association for Energy Economics, council member, 
        2010-present.
        <bullet> Oklahoma Bar Association, Member, 1994-present.
        <bullet> Society of Petroleum Engineers, Member, 2011.
        <bullet> American Association for the Advancement of Science, 
        2010-present.
Selected Activities and Honors
        <bullet> Bronze Star. 2010.
        <bullet> Army Achievement Medal. 2010.
        <bullet> Board of Directors, National Job Corps Association, 
        2005-2008.
        <bullet> U.S. Junior Chamber of Commerce Ten Outstanding Young 
        Americans, Awarded 2002.
        <bullet> Rhodes Scholar, 1989-1991.
        <bullet> While House Fellow, 1997-1998.
        <bullet> Exceptional Contribution to Legal Services of Eastern 
        Oklahoma, Awarded 1996.
        <bullet> Bledsoe Award for Outstanding Law School Graduate from 
        the University of Oklahoma, 1994.
        <bullet> Adjunct Professor of Law (Law and Literature), 
        University of Tulsa College of Law, 1997.
        <bullet> Legal Services of Eastern Oklahoma Board of Directors, 
        1997.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Brad R. Carson 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Brad Rogers Carson.

    2. Position to which nominated:
    General Counsel, U.S. Army.

    3. Date of nomination:
    September 15, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 11, 1967; Winslow, AZ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Julie Kruse Carson.

    7. Names and ages of children:
    Jack David Carson, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Baylor University, B.A. 1989 (1985-1989)
    Oxford University, B.A./M.A. 1991 (1989-1991)
    University of Oklahoma, J.D. 1994 (1991-1994)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Congressman, 2nd District of Oklahoma, 2001-2005, Washington, 
DC.
    Fellow, Kennedy School of Government, Harvard University, 2005, 
Cambridge, MA.
    CEO & President/Director, Cherokee Nation Businesses, LLC, 2005-
2008, Catoosa, OK.
    Officer-In-Charge, Weapons Intelligence Teams, MND-S, 2008-2009, 
Iraq.
    Associate Professor of Business, Associate Professor of Law, 
University of Tulsa, 2009-present, Tulsa, OK.
    Director, National Energy Policy Institute, University of Tulsa, 
2009-present, Tulsa, OK.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    White House Fellow, Special Assistant to the Secretary of Defense, 
1996-1997.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, Cherokee Nation Businesses, LLC, 2009-present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Oklahoma Bar Association, Member, 1994-present.
    U.S. Association for Energy Economics, Council Member, 2010-
present.
    Society of Petroleum Engineers, Member, 2011.
    American Association for the Advancement of Science, Member, 2010-
present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    U.S. Congress, 2nd District of Oklahoma.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for America National Finance Committee.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Williams for City Council, 2011, $500
    Smith-Soap for Chief, 2011, $5,000
    Obama for America, 2011, $1,000
    Reid for Senate, 2010, $1,000
    Edmondson for Governor, 2010, $4,000
    Gumm for Senate, 2010, $1,000
    Williams for House, 2010, $500
    Burrage for Senate, 2010, $2,000
    Boren for Congress, 2010, $2,000
    Paddock for State Superintendent, 2010, $750
    Adelson for Mayor, 2009, $3,000
    AmeriPac, 2008, $2,500
    Adelson for Senate, 2008, $2,000
    Hoskin for House, 2008, $250
    Boren for Congress, 2007, $1,000
    Jim Himes for Congress, 2007, $1,000
    Rice for Senate, 2007, $500
    Rice for Senate, 2008, $250
    Snyder for House, 2007, $250
    Obama for America, 2007, $4,600
    Sparks for Senate, 2006, $250
    Burrage for Senate, 2006, $1,000
    Regan for Lt Gov, 2006, $500

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Bronze Star, 2009.
    Army Achievement Medal, 2009.
    Board of Directors, National Job Corps Association, 2005-2008.
    U.S. Junior Chamber of Commerce Ten Outstanding Young Americans, 
2002.
    Rhodes Scholar, 1989-1991.
    White House Fellow, 1997-1998.
    Exceptional Contribution To Legal Services Of Eastern Oklahoma, 
1996.
    Bledsoe Award For Outstanding Law School Graduate From The 
University Of Oklahoma, 1994.
    Adjunct Professor of Law (Law and Literature). University of Tulsa 
College of Law, 1997.
    Legal Services of Eastern Oklahoma Board of Directors, 1997.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Liberal Moment: What Happened?'' in Symposium Issue of 
Democrary: A Journal of Ideas (along with Michael Sandel, Michael 
Walzer, Danielle Allen, William Galston, Martha Nussbaum, Robert Reich, 
Katha Pollit, and Joe Klein) (Spring 2010).
    ``The Claremore Diarist'' in The New Republic (November 22, 2004).
    ``Does the Democratic Party Have a Future?'' in The Weekly Standard 
(September 16, 2002) (review of The Emerging Democratic Majority by 
Judis and Texeira).
    ``Pay to Play,'' in Blueprint Magazine (May 31, 2005).
    ``The Fall of the House of Representatives'' in Democracy: A 
Journal of Ideas (September 2006) (review of The House: A History of 
the House of Representatives by Remini).
    ``Smart Development Subsidies'' in Democracy: A Journal of Ideas 
((Part of ``20 Ideas for the Next President'') (Spring 2008)).
    Tate v. Browning-Ferris Industries: Oklahoma Adopts a Common Law 
Action for Employment Discrimination.'' 46 OKLA. L. REV. 557 (1993).
    Legal Issues Facing Small Businesses and Their Owners (with Michael 
Troilo) in Human Resource Management in Small Business (New Horizons in 
Management) (eds. Cooper and Burke).
    Federal Appellate Practice (with Robert E. Bacharach) in Appellate 
Manual for Oklahoma Lawyers (eds. Muchmore & Ellis) (3 vols.) (1997).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Brad R. Carson.
    This 3rd day of November, 2011.

    [The nomination of Brad R. Carson was reported to the 
Senate by Chairman Levin on December 15, 2011, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 17, 2011.]
                              ----------                              

    [Prepared questions submitted to Kevin A. Ohlson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                                 DUTIES

    Question. Subchapter XII of Chapter 47 of title 10, U.S.C., 
establishes the U.S. Court of Appeals for the Armed Forces (USCAAF) and 
provides for its organization and administrative procedures.
    What is your understanding of the duties and functions of the 
USCAAF and its judges?
    Answer. The duty of the judges on the USCAAF is to ensure 
independent civilian oversight of the military courts. This 
responsibility is accomplished through appellate review of the 
decisions of the military courts of criminal appeals. The judges also 
have the duty of serving on the Code Committee which meets annually for 
the purpose of making an annual survey of the operations of the Uniform 
Code of Military Justice (UCMJ). This committee also is responsible for 
preparing an annual report that, among other things, provides 
information about the number and status of pending cases in the 
military court system.
    The function of the USCAAF is to provide independent civilian 
oversight of the military justice system through appellate review of 
the decisions of the military courts of criminal appeals. In exercising 
this responsibility, the USCAAF is responsible for reviewing those 
cases where a military court of criminal appeals has affirmed a death 
sentence, where a Service Judge Advocate General orders a case to be 
sent to the USCAAF after it has been reviewed by a military court of 
criminal appeals, and where, upon petition of the accused and for good 
cause shown, the USCAAF has granted review of a decision rendered by a 
military court of criminal appeals.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. First, I served as a judge advocate officer in the U.S. 
Army for 4 years. During that time I not only became familiar with the 
military justice system by serving as a trial counsel and prosecuting a 
number of criminal cases, I also became familiar with the men, women, 
mission, and ethos of the U.S. Armed Forces. I achieved the latter by 
attending Air Assault school, attending Airborne school, being on 
``jump status'' as a parachutist at Fort Bragg for 4 years, deploying 
to four foreign countries, and serving in Saudi Arabia (with two very 
brief forays into Iraq) during the Persian Gulf War and being awarded 
the Bronze Star.
    Second, I served as a Federal prosecutor in the U.S. Attorney's 
Office for the District of Columbia. In that capacity I indicted and 
prosecuted a wide variety of cases in a fast-paced, high-volume office, 
and I became very familiar with the criminal justice system and the 
duties and responsibilities of prosecutors.
    Third, I was appointed as a member of the Board of Immigration 
Appeals. In that position, I served in a judicial capacity deciding 
appeals in immigration cases. This professional opportunity enabled me 
to gain an understanding and appreciation of the role and function of 
adjudicators at the appellate level.
    Fourth, I served as a senior manager within the Department of 
Justice, and the experiences I had in those positions would help me to 
run an efficient and productive chambers if I were to have the honor of 
being confirmed by the Senate.
    Fifth, I served for 2 years as the Chief of Staff and Counselor to 
the Attorney General, which provided me with a broad appreciation of 
the policy issues that confront any criminal justice system.
    Sixth, I currently serve as the Chief of the Department of 
Justice's Professional Misconduct Review Unit. In collaboration with 
the attorneys who work for me, I review instances where Federal 
prosecutors have been accused of misconduct, I determine whether 
misconduct actually occurred, I write detailed memoranda explaining my 
reasoning, and then I impose discipline, if appropriate. Serving in 
this position has reinforced for me the vital importance of performing 
one's duties consistent with the highest standards of honor, 
excellence, integrity, and fairness.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of a judge on the USCAAF?
    Answer. Being considered for a position that is as important, as 
challenging, and as consequential as serving as a judge on the USCAAF 
is a tremendous honor, and I would very willingly take any steps that 
may be helpful in enhancing my ability to perform those duties. 
Accordingly, if I have the privilege of being confirmed by the Senate, 
and even during the confirmation process, I will endeavor to obtain a 
more in-depth knowledge of the legal issues facing the USCAAF by 
reviewing and refreshing my memory of the UCMJ, the Rules for Courts-
Martial, and the Military Rules of Evidence, and by reading key 
decisions of the USCAAF and scholarly articles about the military 
justice system.

                             RELATIONSHIPS

    Question. What are the respective roles of each of the following 
with respect to the military justice system, and if confirmed, what 
would your relationship be with:
    The Secretary of Defense.
    Answer. The Secretary of Defense is authorized to be a convening 
authority for general or special courts-martial, and may promulgate 
orders and regulations that are actionable under the UCMJ. Further, 
because the Secretary is responsible for the formulation of policy 
related to matters directly affecting the Department of Defense (DOD), 
working through the Joint Services Committee the Secretary may propose 
legislative or other changes to the Manual for Courts-Martial (MCM) and 
the UCMJ.
    However, Article 141 of the UCMJ clearly states that the USCAAF is 
located in DOD ``for administrative purposes only''. Therefore, 
although it is unlikely that I would have any interaction with the 
Secretary of Defense even if I were confirmed, if I did so I would 
treat him or her with the greatest respect and courtesy, but I would 
always be mindful of the fact that, when it comes to my professional 
duties and responsibilities, USCAAF judges are wholly independent of 
the Secretary of Defense.
    Question. The Chief Judge of the USCAAF.
    Answer. The Chief Judge of the USCAAF is selected based on 
seniority of commission among those judges on the court who have not 
previously served in that position. The term of service is 5 years. The 
Chief Judge presides at court sessions, and oversees the administrative 
functions of the court. If confirmed, my relationship with the Chief 
Judge would be both collegial and respectful, but when it comes to 
decision-making in cases, I would fully exercise my independent 
judgment.
    Question. Judges of the USCAAF.
    Answer. If confirmed, I would expect my relationship with the other 
judges on the court to be very collegial, and I would closely listen to 
and consider their points-of-view on all issues that come before the 
court. However, when it comes to a vote on a petition, a writ, or a 
case, if confirmed, I would exercise my independent judgment in each 
and every matter.
    Question. The military courts of criminal appeals.
    The USCAAF reviews all cases where a military court of criminal 
appeals has affirmed a death sentence, where a Service Judge Advocate 
General orders the case to be sent to the USCAAF after it has been 
reviewed by a military court of criminal appeals, and where, upon 
petition of the accused and for good cause shown, the USCAAF has 
granted review of a decision rendered by a military court of criminal 
appeals. If confirmed, I would give full and due consideration to the 
analysis and reasoning of members of the military courts of criminal 
appeals in each and every case that comes before me. However, I 
ultimately would exercise my independent judgment in deciding each 
case.
    Question. The General Counsel of the Department of Defense.
    Answer. Although the General Counsel is the chief legal officer of 
DOD, Article 141 of the UCMJ states that the USCAAF falls under the 
Department for administrative purposes only. Thus, the court does not 
fall under the purview, management, or supervision of the General 
Counsel. However, the General Counsel does have the authority to 
exercise those delegated duties as the Secretary may prescribe, and 
thus coordinates any proposed legislative changes to the UCMJ that the 
Joint Services Committee may recommend. If confirmed, my relationship 
with the General Counsel would be respectful and cordial, but I would 
act independently in my role as a judge.
    Question. The Judge Advocates General of the Army, Navy, and Air 
Force, and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
    Answer. The Judge Advocates General of the Army, Navy, and Air 
Force, and the Staff Judge Advocate to the Commandant of the Marine 
Corps, provide advice on military justice matters to the Service Chiefs 
and to the Commandant, respectively. They are responsible for such 
actions as supervising the administration of military justice, 
overseeing the judge advocates and military judges within their 
Service, and reviewing and taking action on certain records of trial. 
Additionally, a Judge Advocate General may certify questions to the 
USCAAF, and serves as a member of both the Joint Services Committee and 
the Code Committee. If confirmed, my relationship with these senior 
officers would be collegial and respectful, but I would always maintain 
my judicial independence and neutrality.

                              LEGAL ISSUES

    Question. What do you anticipate would be the most significant 
legal issues you will be called upon to address if confirmed as a judge 
of the USCAAF?
    Answer. If confirmed, undoubtedly one of the most significant legal 
issues I would be called upon to address would be the changes to 
Article 120 of the UCMJ regarding the offense of rape. I also firmly 
believe that when deciding cases, the judges on the USCAAF must 
continue to be vigilant about protecting the integrity of the military 
justice system from the corrosive effects of command influence and 
ineffective assistance of counsel. Finally, I believe the court will be 
confronted with issues arising from the use of emerging technology as 
it pertains to such issues as possession of child pornography and the 
right of privacy.

                       JURISDICTION OF THE USCAAF

    Question. In your view, has the USCAAF fulfilled the expectations 
of Congress when the court was established in 1951?
    Answer. Yes, very much so. Not only has the court provided the 
necessary civilian oversight of the military justice system, it also 
has provided independent judicial review in military justice cases and 
has served as a bulwark against unlawful command influence.
    Question. In your view, are there any legislative changes needed 
regarding the role and responsibilities or the jurisdiction of the 
USCAAF?
    Answer. I am not aware of the need for any changes at this time.

                    UCMJ JURISDICTION OVER CIVILIANS

    Question. Section 552 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 amended the UCMJ to clarify that 
persons serving with or accompanying an Armed Force in the field are 
subject to the UCMJ during a contingency operation as well as in a time 
of declared war.
    What challenges, if any, do you anticipate that the armed services 
and the USCAAF will encounter in implementing the UCMJ with regard to 
persons serving with or accompanying an Armed Force in the field?
    Answer. As with any new law that has not been thoroughly reviewed 
by the courts, there likely will be a number of challenges to this 
piece of legislation when and if it is invoked in any additional cases 
in the future. First and foremost, if it is a U.S. citizen who is 
prosecuted pursuant to this provision of the UCMJ, the issue will 
undoubtedly arise whether its application to a civilian violates a 
defendant's constitutional guarantees, such as the right to a trial by 
a jury of one's peers. Second, the USCAAF will have to wrestle with 
determining the scope of the law. For example, issues that may arise in 
any specific case will likely include determining the definition of 
such phrases as ``serving with or accompanying an Armed Force,'' ``in 
the field,'' and ``contingency operation.'' Third, there will be issues 
about whether the appropriate person within the military command 
structure exercised jurisdiction in any particular case.
    The armed services also will likely encounter challenges when 
implementing this UCMJ provision. I anticipate that when confronted 
with a case where this UCMJ provision is potentially applicable, the 
armed services may become concerned about the need to delay taking 
action until the Department of Justice (DOJ) has reviewed the case to 
determine whether DOJ will exercise jurisdiction. Further, when a 
particular case arises, depending upon the circumstances of the alleged 
offense, the American public may express concerns about the invocation 
of this provision of the UCMJ and the resulting prosecution of a 
civilian who is a U.S. citizen in the military justice system.

                        DECISIONS OF THE USCAAF

    Question. Please describe the three decisions of the USCAAF since 
2005 which you believe to have been the most significant.
    Answer. United States v. Lewis, 63 M.J. 405 (C.A.A.F. 2006). This 
case reiterates the fact that unlawful command influence is the mortal 
enemy of military justice and that, where it is found to exist, 
judicial authorities must take those steps necessary to preserve both 
the actual fairness, and the apparent fairness, of criminal 
proceedings.
    United States v. Prather, 69 M.J. 338 (2010). In this case the 
accused was charged with aggravated sexual assault for engaging in 
sexual intercourse with a person who was substantially incapacitated. 
The court held that an accused's burden to prove the affirmative 
defense of consent by a preponderance of the evidence 
unconstitutionally shifted the burden onto the defense to disprove an 
element of the offense.
    United States v. Lee, 66 M.J. 387 (2008). After conviction at 
court-martial, the accused alleged that his detailed defense counsel 
failed to adequately disclose a conflict of interest. The USCAAF held 
that counsel provided to or retained by the accused must provide 
reasonably effective assistance, and that where a constitutional right 
to counsel exists, there is a correlative right to representation that 
is free from conflicts of interest.
    Question. What is your view of the role of stare decisis in terms 
of prior decisions of the USCAAF?
    Answer. The doctrine of stare decisis is an essential guiding 
principle for any appellate court. In the military justice system this 
doctrine is especially important because it provides both commanders 
and servicemembers with needed stability, consistency, and 
predictability regarding the handling of criminal offenses. However, 
there may be rare instances where applicable precedent should be 
overturned. This step should only be taken after long and careful 
consideration, and in those instances when it does occur, I believe the 
judges of the USCAAF are obligated to explain their rationale for doing 
so clearly, fully, and persuasively.
    Question. In view of Article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the USCAAF 
in determining appropriate rules of evidence and procedure in courts-
martial?
    Answer. First and foremost, the USCAAF must ensure that its 
decisions are consistent with the Constitution. The USCAAF is also 
bound by the decisions of the U.S. Supreme Court. Next, the court 
should look to the provisions of the UCMJ, other applicable Federal 
statutes, and its own precedents. Then the court should apply the rules 
and procedures set forth in the MCM. Finally, the court should look to 
DOD and Service regulations.
    Question. In your view, what is the appropriate standard for 
determining when the USCAAF should apply a rule that is different from 
the rule generally applied in the trial of criminal cases in the 
Federal district courts?
    Answer. When the MCM and the Military Rules of Evidence provide 
guidance in a particular matter, and when that guidance is not contrary 
to or inconsistent with the Constitution, binding Supreme Court 
precedent, or the UCMJ, then those rules are applicable. It is only 
when the MCM or the Military Rules of Evidence are silent on an issue 
that the court should look to analogous rules applicable in the Federal 
civilian courts.

                        MILITARY JUSTICE SYSTEM

    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer. In my view, the following are the major strengths of the 
military justice system. First, every accused in the military is 
entitled to a free, qualified defense counsel at every step of the 
judicial process. Second, there are sufficient resources devoted to 
criminal cases in the military so that every case receives the 
necessary and proper amount of attention. Third, in the military 
justice system there is no undue pressure for either the government or 
the defendant to plea bargain a case. Fourth, the accused's right to be 
present at, and to participate in, the Article 32 proceeding far 
exceeds any rights that a similarly-situated defendant would have in 
the civilian justice system. Fifth, the jurors in the military are 
uniformly educated, informed, and engaged.
    In my view, the two greatest weaknesses of the military system are 
the potential for command influence to play a role in the ultimate 
outcome of a criminal case, and the flawed perception among some that 
the military system doles out ``drumhead justice'' because of their 
mistaken belief that the rights of the accused are not adequately 
protected.
    Question. What is your view of the relationship between the rights 
of Service personnel and the disciplinary role of commanders?
    Answer. At the core of the UCMJ is the delicate balance that exists 
between the rights of servicemembers on the one hand and the need for 
commanders to maintain good order and discipline on the other hand. In 
the military justice context, an effective military force is grounded 
both on the high morale that is sustained by the knowledge and belief 
of the average servicemember that he or she will be treated fairly and 
that his or her rights will be protected, and on the ability of 
commanders to enforce high standards of behavior in a wide variety of 
situations, some of which are not analogous to those found in civilian 
society. In striking this balance, the UCMJ empowers a commander to 
take such steps as serving as the convening authority and selecting 
court members, while at the same time providing servicemembers with a 
variety of rights and with strong protections against command 
influence. The fact that fundamental changes to the military justice 
system have been relatively rare over the last 6 decades serves as a 
testament to the fact that the UCMJ has struck this balance correctly.
    Question. Do you think that changes to the military justice system 
are called for in light of the experiences of the armed services in 
Iraq and Afghanistan?
    Answer. I believe the military justice system has proven itself to 
be remarkably adept at adjusting to the varied situations arising out 
of the many operations, missions, and deployments of our Armed Forces 
during the last decade. Accordingly, I am not currently aware of any 
changes that are needed in light of the experiences of the armed 
services in Iraq and Afghanistan. However, if confirmed, I would always 
be keenly interested in any recommendations that may be generated by 
the Joint Services Committee or the Code Committee, as well as any 
legislative proposals that may be made by, or to, Congress, including 
the Senate Armed Services Committee.

                   CAPITAL CASES IN THE ARMED FORCES

    Question. The ability of the military justice system to provide 
qualified personnel and resources necessary to capably defend and 
prosecute death penalty cases and respond to the constitutional 
requirements associated with such cases has come under scrutiny.
    What is your understanding of the requirements under constitutional 
precedent for the defense of a capital case?
    Answer. In Strickland v. Washington, 466 U.S. 668 (1984), the 
Supreme Court established a framework for determining whether the 
performance of a defense counsel in a capital case was constitutionally 
adequate. Specifically, Strickland requires the defendant to prove both 
that the counsel's representation was deficient, and that there is a 
reasonable probability that, but for the counsel's deficiency, the 
outcome of the trial would have been different. In later cases the 
Supreme Court held that failure to conduct a thorough investigation of 
potential mitigating factors may constitute ineffective assistance of 
counsel. (See Wiggins v. Smith, 123 S. Ct. 2527 (2003); Porter v. 
McCollum, 130 S. Ct 447 (2009).)
    Question. Based on your review of military jurisprudence regarding 
death penalty cases since the U.S. Supreme Court ruling in Furman v. 
Georgia, what are the issues or errors that have most frequently 
resulted in overturning of death sentences on appeal?
    Answer. In the vast majority of death penalty cases in the military 
that have been overturned on appeal, the reason for the reversal has 
been due to ineffective assistance of counsel.
    Question. What do you consider to be the essential elements in 
preparing court-martial practitioners for the prosecution and defense 
in capital cases?
    Answer. In capital cases it is critically important for both the 
trial counsel and the defense counsel to be top-notch lawyers of the 
highest caliber. Next, these lawyers must receive the necessary 
training in order to ensure that they are fully aware of all the facets 
of handling a capital case so that they will be informed and effective 
advocates at each stage of the proceedings. Further, these lawyers must 
have significant experience litigating cases; training is vitally 
important, but there is no substitute for hands-on litigation 
experience in the courtroom when handling a capital case. Next, the 
lawyers must have ready access to assistance and support in handling 
certain legal aspects of issues that are unique to capital cases. 
Lastly, the lawyers on both sides must have adequate time to prepare 
their cases. Even great lawyers with great training, great experience, 
and great access to resources cannot perform at a level commensurate 
with what we must demand in all capital cases unless they have adequate 
time to analyze and prepare the case.

                           COMMAND INFLUENCE

    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system.
    What is your view as to the role of the USCAAF in addressing this 
problem?
    Answer. As the USCAAF reiterated in United States v. Lewis, 
unlawful command influence is the mortal enemy of military justice, and 
where it is found to exist, judicial authorities must take those steps 
necessary to preserve both the actual and apparent fairness of criminal 
proceedings. Accordingly, the USCAAF has been, and must continue to be, 
vigilant against the corrosive effects of unlawful command influence at 
every stage of legal proceedings. Further, the court must ensure that 
all allegations of unlawful command influence are fully litigated at 
trial and on appeal. Finally, in those cases where unlawful command 
influence has occurred, the court must take strong, appropriate action 
to remedy the problem.

                PRECEDENT UNDER MILITARY COMMISSIONS ACT

    Question. The Military Commissions Act of 2009 (MCA) provides that 
the judicial construction and application of the UCMJ, while 
instructive, is ``not of its own force binding on military commissions 
established under this chapter.'' In addition, the MCA amended Article 
39 of the UCMJ to provide that the findings, holdings, interpretations, 
and other precedents of military commissions ``may not form the basis 
of any holding, decision, or other determination of a court-martial.''
    What is your understanding of the relationship between the judicial 
construction of the UCMJ and the judicial construction of the MCA?
    Answer. The rules of evidence and procedure in the Manual for 
Military Commissions (MMC) differ in several important respects from 
those in the MCM. For example, the MMC allows for admission of certain 
hearsay evidence ``not otherwise admissible under the rules of evidence 
applicable in trial by general courts-martial.'' The Manual notes that 
these differences ``reflect the [Secretary of Defense's] determinations 
that departures are required by the unique circumstances'' arising out 
of the conduct of certain military and intelligence operations. 
However, despite these differences, the procedures for military 
commissions are generally based on the procedures for trial by general 
courts-martial under the UCMJ. Nonetheless, as noted above, while the 
judicial construction and application of the UCMJ are to be considered 
instructive, they ``are not of their own force binding on military 
commissions.'' Therefore, the judges within the military commission 
system are authorized to interpret the MMC provisions that are the same 
or similar to provisions in the UCMJ in a different manner than they 
otherwise would be required to interpret them if USCAAF precedential 
decisions were binding upon them.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Cornyn

                       OPERATION FAST AND FURIOUS

    1. Senator Cornyn. Mr. Ohlson, Assistant Attorney General Lanny 
Breuer has testified to the Senate Judiciary Committee that he learned 
about the Bureau of Alcohol, Tobacco, Firearms and Explosives' (ATF) 
use of gun-walking tactics in April 2010. Attorney General Eric Holder 
has been unclear about the exact date on which he learned about 
Operation Fast and Furious, but we know that it was no later than 
January 30, 2011--when Senator Grassley personally handed him two 
letters discussing that program and requesting documentation relating 
to it. On November 14, you sent a letter to Senator McCain stating that 
you ``took no actions in regard to, had no knowledge of, provided no 
advice about, and had no involvement in Operation Fast and Furious.'' 
While you were the Chief of Staff to Attorney General Holder, did you 
ever have knowledge that the ATF may have been using gun-walking 
tactics, whether or not you had specific knowledge about Operation Fast 
and Furious?
    Mr. Ohlson. No. While I was Chief of Staff I never had any 
knowledge that ATF may have been using gun-walking tactics in any case 
or operation, past or present.

    2. Senator Cornyn. Mr. Ohlson, while you were the Chief of Staff to 
Attorney General Holder, were you ever present at a briefing or meeting 
where ATF gun-walking tactics or Operation Fast and Furious were 
discussed?
    Mr. Ohlson. No. While I was Chief of Staff to Attorney General 
Holder, I was not present at any briefing or meeting where ATF gun-
walking tactics or Operation Fast and Furious were discussed.

    3. Senator Cornyn. Mr. Ohlson, did you attend a briefing on March 
12, 2010, with Acting Deputy Attorney General Gary Grindler where paper 
copies of an Operation Fast and Furious PowerPoint presentation were 
distributed?
    Mr. Ohlson. No. I did not attend that meeting.

    4. Senator Cornyn. Mr. Ohlson, while you were the Chief of Staff to 
Attorney General Holder, did you ever have any conversations with 
Acting Deputy Attorney General Gary Grindler where either weapons 
trafficking investigations or gun-walking tactics were discussed?
    Mr. Ohlson. While I was the Chief of Staff to Attorney General 
Holder, I did not have any conversations with Acting Deputy Attorney 
General Gary Grindler about gun-walking tactics. In regard to the more 
general topic of weapons trafficking investigations, I do not recall 
ever having a conversation with Mr. Grindler about that issue, but I 
may have been present when Mr. Grindler discussed that topic with 
others. If so, I do not recall such a discussion.

    5. Senator Cornyn. Mr. Ohlson, while you were the Chief of Staff to 
Attorney General Holder, did you ever have any conversations with 
Assistant Attorney General Lanny Breuer where either weapons 
trafficking investigations or gun-walking tactics were discussed?
    Mr. Ohlson. While I was the Chief of Staff to Attorney General 
Holder, I did not have any conversations with Assistant Attorney 
General Lanny Breuer about gun-walking tactics. In regard to the more 
general topic of weapons trafficking investigations, I do not recall 
ever having a conversation with Mr. Breuer about that issue, but I may 
have been present when Mr. Breuer discussed that topic with others. If 
so, I do not recall such a discussion.

    6. Senator Cornyn. Mr. Ohlson, while you were the Chief of Staff to 
Attorney General Holder, did you ever hear of a large firearms case 
being operated by the Phoenix Field Division of the ATF?
    Mr. Ohlson. I do not recall ever hearing of a large firearms case 
being operated by the Phoenix Field Division of the ATF while I was 
Chief of Staff to Attorney General Holder.

    7. Senator Cornyn. Mr. Ohlson, do you believe that Assistant 
Attorney General Lanny Breuer should have immediately disclosed his 
knowledge of ATF gun-walking tactics to yourself and the Attorney 
General in April 2010?
    Mr. Ohlson. I have no personal knowledge of what Assistant Attorney 
General Breuer knew or did not know about ATF gun-walking tactics in 
April 2010. However, if Assistant Attorney General Breuer had known 
about ongoing gun-walking tactics at that time, I believe that he 
should have, and I expect that he would have, immediately disclosed 
that information to the Deputy Attorney General and the Attorney 
General so that those tactics could be halted immediately.

    8. Senator Cornyn. Mr. Ohlson, do you have any knowledge of whether 
gun-walking tactics were used in the State of Texas during your tenure 
as chief of staff to Attorney General Holder?
    Mr. Ohlson. I have seen media reports speculating that these 
tactics may have been used in Texas, but I have no knowledge to support 
the contention that it actually occurred.

    9. Senator Cornyn. Mr. Ohlson, in the summer of 2010, the Attorney 
General's office--in which you served as the Chief of Staff--received a 
series of at least five memos from National Drug Intelligence Center 
Director Michael Walther that discussed Operation Fast and Furious. 
These memos were personally addressed to Attorney General Holder, even 
though he now claims that he never received or reviewed any of these 
memos.
    The documents expressly discuss Operation Fast and Furious as an 
ATF investigation of a ``firearms trafficking ring headed by Manuel 
Celis-Acosta. Celis-Acosta and straw purchasers are responsible for the 
purchase of 1,500 firearms that were then supplied to Mexican drug 
trafficking cartels.'' Obviously, this language should have triggered 
some investigation by the Office of the Attorney General.
    Additionally, on November 1, 2010, your office received a memo 
addressed to the Attorney General from Assistant Attorney General Lanny 
Breuer that discussed Operation Fast and Furious under the heading of 
``Significant Recent Events''. On November 14, you sent a letter to 
Senator McCain stating that ``copies of weekly reports were forwarded 
to me that referred to the operation [Fast and Furious] by name.'' 
Additionally, at your nomination hearing, you told Senator McCain that 
``I did not read that weekly report.'' At that same hearing, however, 
you also told me that ``I would be the ultimate funnel point for that 
information.''
    As the ``ultimate funnel point'' for the information contained in 
these reports, as well as an actual recipient of that information, 
shouldn't you have taken the time to read these memos?
    Mr. Ohlson. When I was Chief of Staff, there were a number of 
attorneys within the Attorney General's office who reported to me. Each 
of these attorneys was responsible for providing oversight of specific 
components within the Department of Justice. As part of their duties, 
these attorneys read the weekly reports prepared by their respective 
components and informed me of any sensitive or important matters in 
each week's submission that required my attention. I took this approach 
because there are many different components within the Department of 
Justice handling exceedingly complex issues (e.g., Antitrust, Tax, 
Environment and Natural Resources, the Criminal Division, the Solicitor 
General's Office, et cetera) and the attorneys in my office were the 
subject matter experts in regard to their components and possessed the 
necessary background and knowledge to place any information contained 
in the weekly reports into proper context. It was through this process 
that I determined which of the exceedingly large number of 
informational documents that the Office of the Attorney General 
typically received each day needed to be provided to (i.e., ``funneled 
to'') the Attorney General.
    None of the entries in any weekly reports circulated to the 
Leadership Offices contained any reference to ``gun-walking'' or other 
similar tactics that violated Department policies. Therefore, no 
``alarm bells'' went off in anyone's mind who reviewed these documents 
and they were not flagged for my attention.

    10. Senator Cornyn. Mr. Ohlson, shouldn't the American people 
expect that the Attorney General or the Chief Deputy within his office 
will be familiar with the operational details of an operation that 
involved the straw purchase of 1,500 firearms in the United States that 
were then supplied to Mexican drug trafficking cartels?
    Mr. Ohlson. Based on what I have learned from public testimony and 
media reports during the past 10 months, it is now clear to me that 
Operation Fast and Furious was a fundamentally-flawed operation and was 
not handled in a manner consistent with what the American people have a 
right to expect. First and foremost, gun-walking never should have been 
allowed to occur at any time or in any place. It was a grievous 
mistake. Further, the former Acting Director of ATF and the former U.S. 
Attorney for Arizona should have been knowledgeable about this case, so 
that they could have exercised proper operational oversight. Next, 
information about an operation of this importance and magnitude should 
have been conveyed to the leadership offices of the Department in a 
fuller, more effective, and more timely manner. Finally, as for my 
part, I sincerely regret that I was not knowledgeable about this matter 
and therefore was unable to take steps to inform the Attorney General. 
I have every confidence that if either the Acting Deputy Attorney 
General or the Attorney General had been made aware of the 
inappropriate tactics being employed in this operation, they would have 
put a stop to them immediately.

    11. Senator Cornyn. Mr. Ohlson, shouldn't you have familiarized 
yourself with the details of the weapons trafficking operation 
described above, especially where that operation was discussed by the 
Assistant Attorney General and put to the Attorney General's attention 
in a memo under the heading of ``Significant Recent Events''?
    Mr. Ohlson. Within the Office of the Attorney General there were a 
number of attorneys who reported to me. These attorneys were 
responsible for providing oversight of certain components within the 
Department of Justice, and they were the subject matter experts in 
regard to these components. Further, these attorneys attended the 
meetings that the Attorney General convened with the heads of each of 
these components, and they were in constant contact with senior staff 
within the components to ensure a free flow of information. It is my 
understanding that at no time was the issue of gun-walking ever raised 
with any of these attorneys, and there was no basis for these attorneys 
to raise a red flag with me in my capacity as Chief of Staff. In fact, 
I understand that the former Acting Director of ATF and the former U.S. 
Attorney for Arizona have both indicated that even they did not know of 
these inappropriate tactics while they were being used. In retrospect, 
I sincerely wish that everyone within the chain-of-command at the 
Department of Justice, including myself, had been appropriately 
informed of the misguided and inappropriate tactics employed in 
Operation Fast and Furious.

    12. Senator Cornyn. Mr. Ohlson, are you aware of any individual who 
has been held accountable for this breakdown in the informational chain 
under your watch?
    Mr. Ohlson. Based on the Attorney General's public testimony and 
media reports, it is my understanding that there have been some 
personnel changes in the offices that had supervisory responsibility 
over Operation Fast and Furious, and that additional actions to hold 
individuals accountable will likely follow the issuance of the Acting 
Inspector General's investigation into this matter.

    13. Senator Cornyn. Mr. Ohlson, do you believe that anyone should 
be held accountable for this episode?
    Mr. Ohlson. Yes, I do. Based on what I now know about Operation 
Fast and Furious, it was a fundamentally-flawed operation. These 
inappropriate tactics never should have occurred under any 
circumstances. Therefore, I do believe that whoever was responsible for 
approving and implementing these tactics should be held accountable.
                                 ______
                                 
    [The nomination reference of Kevin A. Ohlson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Kevin A. Ohlson, of Virginia, to be a Judge of the U.S. Court of 
Appeals for the Armed Forces for the term of 15 years to expire on the 
date prescribed by law, vice Andrew S. Effron, term expiring.
                                 ______
                                 
    [The biographical sketch of Kevin A. Ohlson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Kevin A. Ohlson
Education:
        <bullet> Washington and Jefferson College

                <bullet> September 1978-May 1982
                <bullet> Bachelor of Arts Degree awarded May 1982

        <bullet> University of Virginia School of Law

                <bullet> August 1982-May 1985
                <bullet> Juris Doctorate Degree awarded May 1985
Employment Record:
        <bullet> U.S. Department of Justice Professional Misconduct 
        Review Unit

                <bullet> Chief
                <bullet> January 2011-present

        <bullet> Office of the Attorney General

                <bullet> Chief of Staff and Counselor to the Attorney 
                General
                <bullet> January 2009-January 2011

        <bullet> Executive Office for Immigration Review

                <bullet> Director
                <bullet> Deputy Director
                <bullet> Member of the Board of Immigration Appeals
                <bullet> March 2001-January 2009

        <bullet> Office of the Deputy Attorney General

                <bullet> Chief of Staff to the Deputy Attorney General
                <bullet> June 1997-March 2001

        <bullet> Office of the U.S. Attorney for the District of 
        Columbia

                <bullet> Special Counsel to the U.S. Attorney
                <bullet> Assistant U.S. Attorney
                <bullet> December 1989-June 1997

        <bullet> Headquarters, XVIII Airborne Corps, Saudi Arabia

                <bullet> Judge Advocate Officer
                <bullet> October 1990-April 1991

        <bullet> Office of the Staff Judge Advocate, Fort Bragg

                <bullet> Judge Advocate Officer
                <bullet> January 1986-December 1989
Honors and Awards:
        <bullet> Department of Justice Edmund J. Randolph Award (2011)
        <bullet> Department of Justice Distinguished Service Award 
        (2010)
        <bullet> Department of Justice Edmund J. Randolph Award (2001)
        <bullet> Bronze Star (1991)
        <bullet> Kuwait Liberation Medal (1991)
        <bullet> Southwest Asia Service Medal (1991)
        <bullet> National Defense Service Medal (1991)
        <bullet> Army Achievement Medal (1989)
        <bullet> Honduran Parachutist Badge (1988)
        <bullet> Army Parachutist Badge (1986)
        <bullet> Phi Beta Kappa (1982)
        <bullet> James G. Blaine Political Science Prize, Washington 
        and Jefferson College (1982)
        <bullet> George C. Marshall Award (1981)
        <bullet> Army Air Assault Badge (1980)
        <bullet> Four-year Army R.O.T.C. College Scholarship (1978)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Kevin A. 
Ohlson in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kevin Alan Ohlson.

    2. Position to which nominated:
    Judge, U.S. Court of Appeals for the Armed Forces.

    3. Date of nomination:
    September 15, 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 29, 1960; Town of Holden, Worcester County, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Carolyn Florence Davis.

    7. Names and ages of children:
    Matthew Edward Ohlson, 14.
    Katherine Elizabeth Ohlson, 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Wachusett Regional High School; attended 1974 to 1978; high school 
diploma received in June 1978
    Washington and Jefferson College; attended 1978 to 1982; Bachelor 
of Arts degree received in May 1982
    University of Virginia School of Law; attended 1982 to 1985; Juris 
Doctorate degree received in May 1985

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

    a.  Board Member, Board of Immigration Appeals. I served in a 
judicial capacity deciding appeals in immigration cases; my employer 
was the U.S. Department of Justice; my office was located at 5107 
Leesburg Pike, Falls Church, VA; I served in this position from March 
2001 to November 2002.
    b.  Deputy Director, Executive Office for Immigration Review. I 
supervised the Board of Immigration Appeals and the Office of the Chief 
Immigration Judge; my employer was the U.S. Department of Justice; my 
office was located at 5107 Leesburg Pike, Falls Church, VA; I served in 
this position from December 2002 to March 2007.
    c.  Director, Executive Office for Immigration Review. I served as 
the head of the agency which is responsible for adjudicating all 
immigration cases nationwide; my employer was the U.S. Department of 
Justice; my office was located at 5107 Leesburg Pike, Falls Church, VA; 
I served in this position from March 2007 to January 2009.
    d.  Chief of Staff and Counselor to the Attorney General. I advised 
the Attorney General on legal and policy issues, and I managed the 
attorneys and staff who worked within the Office of the Attorney 
General; my employer was the U.S. Department of Justice; my office was 
located at 950 Pennsylvania Avenue, NW, Washington, DC; I served in 
this position from January 2009 to January 2011.
    e.  Chief, Professional Misconduct Review Unit. This newly-created 
office is responsible for handling disciplinary actions and State bar 
referrals in all instances where the Office of Professional 
Responsibility has made preliminary findings that a Federal prosecutor 
has engaged in professional misconduct; my employer is the U.S. 
Department of Justice; my office is located at 1577 Spring Hill Road, 
Vienna, VA; I have served in this position from January 2011 to the 
present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.

    a.  I served on Active Duty as an officer in the U.S. Army from 
January 1986 to December 1989. I then was recalled to Active Duty from 
October 1990 to April 1991 and served overseas during the Persian Gulf 
War. I also served on Inactive Reserve Duty from January 1990 to 
September 1990, and from June 1991 to October 1995.
    b.  I served as an Assistant U.S. Attorney in the District of 
Columbia from December 1989 until June 1997 (with a break in service 
during the time I was recalled to Active Duty, as mentioned above).
    c.  I served as Chief of Staff to the Deputy Attorney General at 
the Department of Justice from June 1997 to March 2001.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Not applicable.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Legion (1992 to present)
    Member, Veterans of Foreign Wars (1992 to present)
    Member, Virginia State Bar (1985 to present; on inactive status 
since 1995)
    Member, Bar of the District of Columbia (1992 to present)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Not applicable.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Not applicable.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    06/27/2008, $1,000 contribution to Obama for America
    07/01/2008, $200 contribution to ActBlue

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Four-year Army R.O.T.C. college scholarship (1978)
    Phi Beta Kappa (1982)
    James G. Blaine Political Science Prize, Washington and Jefferson 
College (1982)
    George C. Marshall Award (1981)
    Bronze Star Medal (1991)
    Southwest Asia Service Medal with Two Bronze Service Stars (1991)
    Kuwait Liberation Medal (1991)
    National Defense Service Medal (1991)
    Army Achievement Medal (1989)
    Army Air Assault Badge (1980)
    Army Parachutist Badge (1986)
    Honduran Parachutist Badge (1988)
    Department of Justice Edmund J. Randolph Award (2001)
    Department of Justice Distinguished Service Award (2010)
    Department of Justice Edmund J. Randolph Award (2011)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Co-author (with Eric H. Holder, Jr.) of ``Dealing with the Media in 
High Profile White Collar Crime Cases: The Prosecutor's Dilemma,'' in 
the 1995 edition of the American Bar Association's publication, White 
Collar Crime.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Not applicable.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Kevin A. Ohlson.
    This 24th day of October, 2011.

    [At the time of printing, neither the committee nor the 
Senate had taken further action on the nomination of Kevin A. 
Ohlson.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS

                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
